No.
IN THE SUPREME COURT OF THE UNITED STATES
In Re:
WILLIAM FEEHAN,
Petitioner,
v.
WISCONSIN ELECTIONS COMMISSION, COMMISSIONER ANN S. JACOBS,
MARC L. THOMSEN, COMMISSIONER MARGE BOSTELMAN, JULIE M.
GLANCEY, COMMISSIONER DEAN KNUDSON, ROBERT F. SPINDELL, JR.
and GOVERNOR TONY EVERS,
Respondents.
On Petition For Extraordinary Writ of Mandamus From The United
States District Court For The Eastern District of Wisconsin

APPENDIX
HOWARD KLEINHENDLER
Counsel of Record
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

SIDNEY POWELL
Sidney Powell, P.C.
2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Of Counsel
JULIA Z. HALLER
BRANDON JOHNSON
EMILY P. NEWMAN

Table of Contents of Appendix
ECF Docket .................................................................................................................... 1
ECF 1 COMPLAINT ..................................................................................................... 18
ECF 2 MOTION for Temporary Restraining ........................................................... 401
ECF 3 BRIEF in Support filed .................................................................................. 403
ECF 5 DISCLOSURE Statement ............................................................................. 414
ECF 6 MOTION to Amend/Correct Docket # 2 ........................................................ 417
ECF 7 ORDER signed ............................................................................................... 424
ECF 8 NOTICE of Appearance ................................................................................. 428
ECF 9 AMENDED COMPLAINT ............................................................................. 429
ECF 10 Emergency MOTION to Amend/Correct Docket # 6 .................................. 783
ECF 11 NOTICE of Appearance ............................................................................... 794
ECF 12 NOTICE of Appearance ............................................................................... 795
ECF 13 NOTICE of Appearance ............................................................................... 796
ECF 14 MOTION to Intervene ................................................................................. 797
ECF 15 MOTION Reassign Case Pursuant to Civil L.R. 3(b) ................................. 814
ECF 16 PLAINTIFFS’ OPPOSITION TO REQUEST FOR PRE-HE... .................. 819
ECF 17 NOTICE of Appearance ............................................................................... 825
ECF 18 RESPONSE to Motion filed ........................................................................ 827
ECF 19 ORDER signed ............................................................................................. 832
ECF 20 NOTICE of Appearance ............................................................................... 836
ECF 21 NOTICE of Appearance ............................................................................... 838
ECF 22 MOTION to Intervene ................................................................................. 840
ECF 23 BRIEF in Support filed ................................................................................ 869
ECF 24 DISCLOSURE Statement ........................................................................... 879
ECF 25 REPLY filed .................................................................................................. 881
ECF 26 REPLY filed .................................................................................................. 883
ECF 27 NOTICE of Appearance ............................................................................... 886
ECF 28 NOTICE of Appearance ............................................................................... 887
ECF 29 ORDER signed ............................................................................................. 888
ECF 30 NOTICE of Appearance ............................................................................... 898
i

ECF 31 NOTICE of Appearance ............................................................................... 899
ECF 32 NOTICE of Appearance ............................................................................... 900
ECF 33 7(h) Expedited NON-DISPOSITIVE MOTION to Intervene ..................... 901
ECF 34 MOTION for Leave to File Excess Pages .................................................... 905
ECF 35 NOTICE of Appearance ............................................................................... 907
ECF 37 ORDER signed ............................................................................................. 908
ECF 40 Expedited MOTION to Intervene ................................................................ 914
ECF 41 ORDER signed ............................................................................................. 918
ECF 42 BRIEF in Support filed ................................................................................ 936
ECF 43 MOTION To File Separate Reply Briefs ...................................................... 947
ECF 44 MOTION To Hold Consolidated Evidentiary Hearing/Trial ..................... 951
ECF 46 RESPONSE to Motion filed ......................................................................... 955
ECF 47 AMICUS BRIEF in Opposition to 6 MOTION for Injunctive Relief filed . 960
ECF 48 NOTICE of Appearance ............................................................................... 980
ECF 49 NOTICE of Appearance ............................................................................... 981
ECF 50 NOTICE of Appearance ............................................................................... 982
ECF 51 MOTION to Dismiss Plaintiff’s Amended Complaint ................................ 983
ECF 52 RESPONSE to Motion filed ......................................................................... 986
ECF 53 MOTION to Dismiss .................................................................................. 1016
ECF 54 BRIEF in Support filed .............................................................................. 1018
ECF 55 BRIEF in Opposition filed ......................................................................... 1044
ECF 56 MOTION for Leave to File Amicus Curiae Brief ...................................... 1216
ECF 57 BRIEF in Opposition filed ......................................................................... 1247
ECF 58 UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed ..................... 1365
ECF 59 BRIEF in Support filed .............................................................................. 1543
ECF 60 BRIEF in Opposition .................................................................................. 1721
ECF 61 NOTICE of Appearance ............................................................................. 1725
ECF 62 NOTICE of Appearance ............................................................................. 1726
ECF 63 NOTICE of Appearance ............................................................................. 1728
ECF 64 NOTICE of Appearance ............................................................................. 1730
ECF 65 NOTICE of Appearance ............................................................................. 1732
ECF 66 NOTICE of Appearance ............................................................................. 1734
ii

ECF 67 NOTICE of Appearance ............................................................................. 1735
ECF 68 NOTICE of Appearance ............................................................................. 1736
ECF 69 ORDER signed ........................................................................................... 1737
ECF 71 Court Minutes and Order from the Status Conference held before Chief
Judge Pamela Pepper on 12/8/2020. ............................................................... 1743
ECF 72 BRIEF in Opposition filed ......................................................................... 1745
ECF 73 REPLY BRIEF in Support filed ................................................................ 1870
ECF 74 ORDER signed ........................................................................................... 1900
ECF 75 MOTION to Seal Document Public Motion Prior to Filing
Sealed/Restricted Exhibits ................................................................................ 1916
ECF 76 BRIEF in Support filed .............................................................................. 1923
ECF 77 REPLY BRIEF in Support filed ................................................................ 1932
ECF 78 UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed .................... 1948
ECF 79 BRIEF in Opposition filed ......................................................................... 2061
ECF 80 NOTICE of Appearance ............................................................................. 2074
ECF 81 NOTICE ...................................................................................................... 2075
ECF 82 ORDER signed ........................................................................................... 2107
ECF 83 ORDER DISMISSING CASE .................................................................... 2112
ECF 84 NOTICE OF APPEAL as to 83 Order Dismissing Case,,, Terminate
Motions ............................................................................................................... 2157
ECF 85 JUDGMENT signed ................................................................................... 2159
ECF 86 Transmission of Notice of Appeal and Docket Sheet to US Court of
Appeals re 84 Notice of Appeal (lmf) ................................................................ 2160
ECF 87 Attorney Cover Letter re: 84 Notice of Appeal ......................................... 2226
Docket Report through 12/22/20 .............................................................................. 2227
ECF 88 USCA 7th Cir. 12/10/20 Notice of Docketing Case Number 20-3396 re:
84 Notice of Appeal filed 12/10/20 ..................................................................... 2241
ECF 93 USCA 7th Cir. 12/16/20 Notice of Docketing Case Number 20-3396 re:
84 Notice of Appeal filed 12/15/20 ..................................................................... 2243

iii

APPENDIX ITEMS REQUIRED BY
S UPREM E CO U RT R U LE 1 4 (1 (I )(V)
Constitutional Provisions ......................................................................................... 2244
1.

U.S. Const. Art. II, Art. 1: .............................................................................. 2244

Statutes ..................................................................................................................... 2244
2.

28 U.S.C. § 1331 .............................................................................................. 2244

3.

28 U.S.C. 1343................................................................................................. 2244

4.

28 U.S.C. § 1367 .............................................................................................. 2245

5.

28 U.S.C. § 1651 .............................................................................................. 2246

6.

42 U.S.C. § 1983 .............................................................................................. 2246

7.

42 U.S.C. § 1988(a) ......................................................................................... 2246

8.

28 USC § 2201 ................................................................................................. 2247

9.

28 USC 2202.................................................................................................... 2247

10. 52 U.S.C § 20701 ............................................................................................. 2247
11. Wis. Stat. § 6.84 .............................................................................................. 2248
12. Wis. Stat. § 8.18 .............................................................................................. 2248
13. Wis. Stat. § 8.25 .............................................................................................. 2248
14. Wis. Stat. § 15.61 ............................................................................................ 2249
15. Wis. Stat. § 5.03 .............................................................................................. 2252
16. Wis. Stat. § 6.855 ............................................................................................ 2252
17. Wis. Stat. 6.86 ................................................................................................. 2253
18. Wis. Stat. 6.87 ................................................................................................. 2259
19. Wis. Stat. § 6.89 .............................................................................................. 2264
20. Wis. Stat. § 15.61 ............................................................................................ 2265

iv

12/11/2020

Eastern District of Wisconsin - Live

Query

Reports

Utilities

Help

Log Out

APPEAL,ATTYOPEN,CLOSED,RF

United States District Court
Eastern District of Wisconsin (Milwaukee)
CIVIL DOCKET FOR CASE #: 2:20-cv-01771-PP
Feehan et al v Wisconsin Elections Commission et al
Assigned to: Chief Judge Pamela Pepper
Case in other court: 20-03396
USCA: Feehan: 12-00010-2020, 20-03396
Cause 42 1983 Civil Rights Act

Date Filed 12/01/2020
Date Terminated: 12/10/2020
Jury Demand None
Nature of Suit: 441 Civil Rights: Voting
Jurisdiction Federal Question

Plaintiff
William Feehan

represented by Daniel J Eastman
Eastman Law
PO Box 158
Mequon, WI 53092
414-881-9383
Email: daneastman@me.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael D Dean
Michael D Dean LLC
17035 W Wisconsin Ave - Ste 100
PO Box 2545
Brookfield, WI 53008
262-798-8044
Fax: 262-798-8045
Email: miked@michaelddeanllc.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brandon Johnson
Sidney Powell PC
2911 Turtle Creek Blvd - Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
Emily P Newman
Sidney Powell PC
2911 Turtle Creek Blvd - Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED

1

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

Howard Kleinhendler
Howard Kleinhendler Esq
369 Lexington Ave - 12th Fl
New York, NY 10017
1/17

12/11/2020

Eastern District of Wisconsin - Live

917 793 1188
Fax: 732-901-0832
Email howard@kleinhendler com
ATTORNEY TO BE NOTICED
Julia Z Haller
Sidney Powell PC
2911 Turtle Creek Blvd - Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
L Lin Wood
L Lin Wood PC
PO Box 52584
Atlanta, GA 30305 0584
404-891-1402
ATTORNEY TO BE NOTICED
Sidney Powell
Sidney Powell PC
2911 Turtle Creek Blvd Ste 300
Dallas, TX 75219
214 707 1775
Email: sidney@federalappeals.com
ATTORNEY TO BE NOTICED
Plaintiff
Derrick Van Orden
TERMINATED: 12/03/2020

represented by Michael D Dean
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brandon Johnson
(See above for address)
ATTORNEY TO BE NOTICED
Daniel J Eastman
(See above for address)
ATTORNEY TO BE NOTICED
Emily P Newman
(See above for address)
ATTORNEY TO BE NOTICED
Howard Kleinhendler
(See above for address)
ATTORNEY TO BE NOTICED
Julia Z Haller
(See above for address)
ATTORNEY TO BE NOTICED

2

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

L Lin Wood
(See above for address)
2/17

12/11/2020

Eastern District of Wisconsin - Live

ATTORNEY TO BE NOTICED
Sidney Powell
(See above for address)
ATTORNEY TO BE NOTICED
V.
Defendant
Wisconsin Elections Commission

represented by Colin T Roth
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707-7857
608 266 0020
Fax: 608-267-2223
Email rothct@doj state wi us
ATTORNEY TO BE NOTICED
Jody J Schmelzer
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707 7857
608-266-3094
Fax 608 267 8906
Email: schmelzerjj@doj.state.wi.us
ATTORNEY TO BE NOTICED
Sean Michael Murphy
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707-7857
608 266 5457
Fax: 608-267-2223
Email murphysm@doj state wi us
ATTORNEY TO BE NOTICED

Defendant
Commissioner Ann S Jacobs

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy

3

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

3/17

12/11/2020

Eastern District of Wisconsin - Live

(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Mark L Thomsen

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Commissioner Marge Bostelmann

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Julie M Glancey

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Commissioner Dean Knudson

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy

4

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

4/17

12/11/2020

Eastern District of Wisconsin - Live

(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Robert F Spindell, Jr

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Tony Evers

represented by Davida Brook
Susman Godfrey LLP
1901 Ave of the Stars - Ste 950
Los Angeles, CA 90061
310-789-3100
Fax: 310-789-3150
Email: dbrook@susmangodfrey.com
ATTORNEY TO BE NOTICED
Jeffrey A Mandell
Stafford Rosenbaum LLP
222 W Washington Ave - Ste 900
PO Box 1784
Madison, WI 53701-1784
608-256-0226
Fax: 608-259-2600
Email: jmandell@staffordlaw.com
ATTORNEY TO BE NOTICED
Justin A Nelson
Susman Godfrey LLP
1000 Louisiana St - Ste 5100
Houston, TX 77002-5096
713-653-7895
Fax: 713-654-6666
Email: jnelson@susmangodfrey.com
ATTORNEY TO BE NOTICED
Paul M Smith
Campaign Legal Center
1101 14th St NW - Ste 400
Washington, DC 20005
202-856-7901
Fax: 202-736-2222
Email: psmith@campaignlegal.org
ATTORNEY TO BE NOTICED

5

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

5/17

12/11/2020

Eastern District of Wisconsin - Live

Rachel E Snyder
Stafford Rosenbaum LLP
222 W Washington Ave - Ste 900
PO Box 1784
Madison, WI 53701-1784
608-259-2657
Fax: 608-259-2600
Email: rsnyder@staffordlaw.com
ATTORNEY TO BE NOTICED
Richard Manthe
Stafford Rosenbaum LLP
222 W Washington Ave - Ste 900
PO Box 1784
Madison, WI 53701-1784
608-259-2684
Email: rmanthe@staffordlaw.com
ATTORNEY TO BE NOTICED
Stephen Morrissey
Susman Godfrey LLP
1201 3rd Ave - Ste 3800
Seattle, WA 98101
206-373-7380
Email smorrissey@susmangodfrey com
ATTORNEY TO BE NOTICED
Stephen Shackelford , Jr
Susman Godfrey LLP
1301 Ave of the Americans -32nd Fl
New York, NY 10019
212-729-2012
Email sshackelford@susmangodfrey com
ATTORNEY TO BE NOTICED
Amicus
Wisconsin State Conference NAACP

6

represented by Allison E Laffey
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7003
Fax: 414-755-7089
Email: alaffey@llgmke.com
ATTORNEY TO BE NOTICED

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

Ezra D Rosenberg
Lawyers Committee for Civil Rights Under
Law
1500 K Street NW - Ste 900
Washington, DC 20005
202-662-8345
Fax: 202-783-0857
Email: erosenberg@lawyerscommittee.org
ATTORNEY TO BE NOTICED
6/17

12/11/2020

Eastern District of Wisconsin - Live

Jacob Conarck
Lawyer's Committee for Civil Rights Under
Law
1500 K St NW - 9th Fl
Washington, DC 20005
202-662-8315
Fax: 202-783-0857
Email: jpconarck@gmail.com
ATTORNEY TO BE NOTICED
John W Halpin
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7261
Fax: 414-755-7089
Email: jhalpin@llgmke.com
ATTORNEY TO BE NOTICED
Jon Greenbaum
Lawyers'Committee for Civil Rights Under
Law
District Of Columbia
1500 K Street NW - 9th Fl
Washington, DC 20005
202-662-8315
Email: jgreenbaum@lawyerscommittee.org
ATTORNEY TO BE NOTICED
Joseph S Goode
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7003
Fax: 414-755-7089
Email: jgoode@llgmke.com
ATTORNEY TO BE NOTICED
Mark M Leitner
Laffey Leitner & Goode LLC
325 E Chicago St - Ste 200
Milwaukee, WI 53202
414-312-7003
Fax: 414-755-7089
Email: mleitner@llgmke.com
ATTORNEY TO BE NOTICED
Amicus
Dorothy Harrell

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED

7
https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

Ezra D Rosenberg
7/17

12/11/2020

Eastern District of Wisconsin - Live

(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED
Amicus
Wendell J. Harris, Sr.

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED

Amicus
Earnestine Moss

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED

8
https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

John W Halpin
8/17

12/11/2020

Eastern District of Wisconsin - Live

(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED
V.
Intervenor
Democratic National Committee

represented by Sopen B Shah
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-7460
Fax: 608-663-7460
Email: SShah@perkinscoie.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Will McDonell Conley
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-7460
Fax: 608-663-7499
Email: WConley@perkinscoie.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Charles G Curtis , Jr
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-5411
Fax: 608-663-7499
Email: ccurtis@perkinscoie.com
ATTORNEY TO BE NOTICED
Christopher Bouchoux
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
New York, NY 10007
212-230-8823
Email:

9

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

9/17

12/11/2020

Eastern District of Wisconsin - Live

christopher.bouchoux@wilmerhale.com
ATTORNEY TO BE NOTICED
David S Lesser
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
New York, NY 10007
212-230-8851
Email: david.lesser@wilmerhale.com
ATTORNEY TO BE NOTICED
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
New York, NY 10007
212-937-7236
Email: jamie.dycus@wilmerhale.com
ATTORNEY TO BE NOTICED
Michelle M Umberger
Perkins Coie LLP
33 E Main St - Ste 201
Madison, WI 53703
608-663-7460
Fax: 608-663-7499
Email: MUmberger@perkinscoie.com
ATTORNEY TO BE NOTICED
Seth P Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave NW
Washington, DC 20006
202-663-6800
Fax: 202-663-6363
Email: seth.waxman@wilmerhale.com
ATTORNEY TO BE NOTICED
V.
Movant
James Gesbeck

represented by James Gesbeck
9302 Harvest Moon Lane
Verona, WI 53593
PRO SE

Date Filed

#

12/01/2020

1 COMPLAINT against All Plaintiffs by William Feehan. ( Filing Fee PAID $400 receipt
number AWIEDC-3652059) (Attachments: # 1 Exhibit, # 2 Exhibit, # 3 Exhibit, # 4
Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8 Exhibit, # 9 Exhibit, # 10 Exhibit, # 11
Exhibit, # 12 Exhibit, # 13 Exhibit, # 14 Exhibit, # 15 Exhibit, # 16 Exhibit, # 17 Exhibit,
# 18 Exhibit, # 19 Exhibit, # 20 Exhibit, # 21 Exhibit, # 22 Exhibit, # 23 Exhibit, # 24

10

Docket Text

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

10/17

12/11/2020

Eastern District of Wisconsin - Live

Exhibit, # 25 Exhibit, # 26 Exhibit, # 27 Exhibit)(Dean, Michael) (Additional
attachment(s) added on 12/1/2020: # 28 Civil Cover Sheet) (jcl).
12/01/2020

2 MOTION for Temporary Restraining Order by All Plaintiffs. (Dean, Michael)

12/01/2020

3 BRIEF in Support filed by All Plaintiffs re 2 MOTION for Temporary Restraining Order
(Dean, Michael)

12/01/2020

NOTICE Regarding assignment of this matter to Chief Judge Pamela Pepper;
Consent/refusal forms for Magistrate Judge Joseph to be filed within 21 days; the
consent/refusal form is available here. Pursuant to Civil Local Rule 7.1 a disclosure
statement is to be filed upon the first filing of any paper and should be filed now if not
already filed. (jcl)

12/01/2020

4 Magistrate Judge Jurisdiction Form filed by All Plaintiffs (NOTICE Pursuant to
Fed.R.Civ.P. 73 this document is not viewable by the judge.) (Dean, Michael)

12/01/2020

5 DISCLOSURE Statement by All Plaintiffs. (Dean, Michael)

12/01/2020

6 MOTION to Amend/Correct Docket # 2 PLAINTIFFS MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF by All Plaintiffs.
(Attachments # 1 Text of Proposed Order)(Dean, Michael)

12/02/2020

7 ORDER signed by Chief Judge Pamela Pepper on 12/2/2020 re 6 Amended Motion for
Injunctive Relief. (cc: all counsel)(cb)

12/02/2020

8 NOTICE of Appearance by Sidney Powell on behalf of All Plaintiffs Attorney(s)
appearing: Sidney Powell (Powell, Sidney)

12/03/2020

9 AMENDED COMPLAINT removing Derrick Van Orden as Plaintiff against All
Defendants filed by William Feehan. (Attachments: # 1 Exhibit, # 2 Exhibit, # 3 Exhibit, #
4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8 Exhibit, # 9 Exhibit, # 10 Exhibit, # 11
Exhibit, # 12 Exhibit, # 13 Exhibit, # 14 Exhibit, # 15 Exhibit, # 16 Exhibit, # 17 Exhibit,
# 18 Exhibit, # 19 Exhibit)(Dean, Michael)

12/03/2020

10 Emergency MOTION to Amend/Correct Docket # 6 PLAINTIFFS CORRECTED
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE
RELIEF by William Feehan (Attachments # 1 Information Sheet Proposed Briefing
Schedule)(Dean, Michael)

12/03/2020

11 NOTICE of Appearance by Jeffrey A Mandell on behalf of Tony Evers. Attorney(s)
appearing: Jeffrey A. Mandell (Mandell, Jeffrey)

12/03/2020

12 NOTICE of Appearance by Rachel E Snyder on behalf of Tony Evers. Attorney(s)
appearing Rachel E Snyder (Snyder, Rachel)

12/03/2020

13 NOTICE of Appearance by Howard Kleinhendler on behalf of William Feehan.
Attorney(s) appearing: Howard Kleinhendler (Kleinhendler, Howard)

12/03/2020

14 MOTION to Intervene by James Gesbeck (Attachments # 1 Proposed Answer, # 2
Certificate of Service)(asc)

12/03/2020

15 BRIEF in Support filed by James Gesbeck re 14 MOTION to Intervene. (asc)

12/03/2020

16 MOTION Reassign Case Pursuant to Civil L R 3(b) by Tony Evers (Attachments # 1
Exhibit 1 - Notice from Case 20-CV-1785)(Mandell, Jeffrey)

12/03/2020

17 NOTICE of Appearance by Sean Michael Murphy on behalf of Marge Bostelmann, Julie
M Glancey, Ann S Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen,
Wisconsin Elections Commission. Attorney(s) appearing: Sean Michael Murphy, Jody J.
Schmelzer, Colin T. Roth (Murphy, Sean)

11

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

11/17

12/11/2020

Eastern District of Wisconsin - Live

12/03/2020

18 RESPONSE to Motion filed by William Feehan re 16 MOTION Reassign Case Pursuant
to Civil L.R. 3(b) . (Dean, Michael)

12/03/2020

19 ORDER signed by Chief Judge Pamela Pepper on 12/3/2020 DENYING 16 defendant
Tony Evers's motion to reassign case pursuant to Civil L.R. 3(b). (cc: all counsel)(cb)

12/03/2020

20 NOTICE of Appearance by Charles G Curtis, Jr on behalf of Democratic National
Committee. Attorney(s) appearing: Charles G. Curtis (Curtis, Charles)

12/03/2020

21 NOTICE of Appearance by Michelle M Umberger on behalf of Democratic National
Committee. Attorney(s) appearing: Michelle M. Umberger (Umberger, Michelle)

12/03/2020

Party Derrick Van Orden terminated. (amb) (Entered: 12/04/2020)

12/04/2020

22 MOTION to Intervene by Democratic National Committee. (Attachments: # 1 Exhibit 1Proposed Answer, # 2 Text of Proposed Order)(Umberger, Michelle)

12/04/2020

23 BRIEF in Support filed by Democratic National Committee re 22 MOTION to Intervene .
(Umberger, Michelle)

12/04/2020

24 DISCLOSURE Statement by Democratic National Committee. (Umberger, Michelle)

12/04/2020

25 REPLY filed by Tony Evers to Plaintiff's Proposed Briefing Schedule. (Mandell, Jeffrey)

12/04/2020

26 REPLY filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean Knudson,
Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission to Plaintiff's
Proposed Briefing Schedule. (Murphy, Sean)

12/04/2020

27 NOTICE of Appearance by Justin A Nelson on behalf of Tony Evers. Attorney(s)
appearing: Justin A. Nelson (Nelson, Justin)

12/04/2020

28 NOTICE of Appearance by Davida Brook on behalf of Tony Evers. Attorney(s) appearing:
Davida Brook (Brook, Davida)

12/04/2020

29 ORDER signed by Chief Judge Pamela Pepper on 12/4/2020. 10 Plaintiff's amended
motion GRANTED IN PART to extent that it is Civil L.R. 7(h) expedited non-dispositive
motion for expedited briefing schedule; defendant's opposition to plaintiff's amended
motion due by 5:00 PM on 12/7/2020, plaintiff's reply due by 5:00 PM on 12/8/2020. The
court DEFERS RULING on plaintiff's amended motion to extent that it asks the court to
issue TRO or preliminary injunction. (cc: all counsel)(cb)

12/04/2020

30 NOTICE of Appearance by Stephen Shackelford, Jr on behalf of Tony Evers. Attorney(s)
appearing: Stephen L. Shackelford, Jr. (Shackelford, Stephen)

12/04/2020

31 NOTICE of Appearance by Richard Manthe on behalf of Tony Evers. Attorney(s)
appearing: Richard A. Manthe (Manthe, Richard)

12/04/2020

32 NOTICE of Appearance by Paul M Smith on behalf of Tony Evers. Attorney(s) appearing:
Paul M. Smith (Smith, Paul)

12/04/2020

33 7(h) Expedited NON-DISPOSITIVE MOTION to Intervene by James Gesbeck.
(Attachments: # 1 Certificate of Service)(lz)

12/04/2020

34 MOTION for Leave to File Excess Pages by Tony Evers. (Mandell, Jeffrey)

12/04/2020

35 NOTICE of Appearance by Sidney Powell on behalf of All Plaintiffs. Attorney(s)
appearing: Sidney Powell (Powell, Sidney)

12/04/2020

36 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/4/2020 re 34
MOTION for Leave to File Excess Pages filed by Tony Evers: The defendant seeks leave
to file a brief in excess of the thirty pages allowed by Civil L.R. 7(f) because he proposes

12

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

12/17

12/11/2020

Eastern District of Wisconsin - Live

to both oppose the plaintiff's amended motion for injunctive relief and support his own, not
yet filed motion to dismiss in the same pleading. The court appreciates any party's effort to
streamline litigation, but would prefer that the defendant file separate briefs opposing the
plaintiff's amended motion and supporting his own. This will avoid confusion when the
plaintiff responds. The court DENIES the defendant's motion for leave to file excess
pages. NOTE: There is no document associated with this text-only order. (cc: all
counsel)(Pepper, Pamela)
12/04/2020

37 ORDER signed by Chief Judge Pamela Pepper on 12/4/2020 allowing James Gesbeck to
file amicus curiae brief by 5:00 PM on 12/7/2020. (cc: all counsel, via mail to James
Gesbeck)(cb)

12/05/2020

38 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/5/2020 re 22
MOTION to Intervene filed by Democratic National Committee signed by Chief Judge
Pamela Pepper on 12/5/2020: Under Civil L.R. 7(b), the plaintiff's response is due by
December 25, 2020; because December 25 is a federal holiday, the court ORDERS that
the plaintiff's response is due by December 28, 2020. NOTE: There is no document
associated with this text-only order. (cc: all counsel)(Pepper, Pamela)

12/05/2020

39 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/05/2020 re 33
MOTION to Intervene filed by James Gesbeck: Under Civil L.R. 7(h), the plaintiff's
response is due by Friday, December 11, 2020. NOTE: There is no document associated
with this text-only order. (cc: all counsel)(Pepper, Pamela)

12/05/2020

40 Expedited MOTION to Intervene by Democratic National Committee. (Umberger,
Michelle)

12/06/2020

41 ORDER signed by Chief Judge Pamela Pepper on 12/6/2020. 40 Movant DNC's expedited
motion to intervene GRANTED to extent that court has expedited its ruling on original
motion to intervene. 22 Movant DNC's original motion to intervene DENIED. Movant
DNC may file amicus curiae brief by 5:00 PM on 12/7/2020. (cc: all counsel)(cb)

12/06/2020

42 BRIEF in Support filed by William Feehan re 10 Emergency MOTION to Amend/Correct
Docket # 6: PLAINTIFFS CORRECTED MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF Amended Brief. (Dean,
Michael)

12/06/2020

43 MOTION To File Separate Reply Briefs by William Feehan. (Dean, Michael)

12/06/2020

44 MOTION To Hold Consolidated Evidentiary Hearing/Trial by William Feehan. (Dean,
Michael)

12/07/2020

45 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/7/2020 re 43
MOTION To File Separate Reply Briefs filed by William Feehan: The court GRANTS the
plaintiff's motion for leave to file separate reply briefs. If the defendants file a single
opposition brief, the plaintiff must file one reply to that brief. If the defendants file
separate opposition briefs, the plaintiff may file a reply for each opposition brief. The
plaintiff also may file a separate reply for each brief filed by an amicus. (In other words,
the plaintiff could file up to four reply briefs if the defendants file separate briefs and each
amicus files a brief.) If the defendants file a separate motion to dismiss, the plaintiff may
file an opposition brief of up to thirty pages under Civil L.R. 7(b). NOTE: There is no
document associated with this text-only order. (cc: all counsel)(Pepper, Pamela)

12/07/2020

NOTICE of Hearing: Status Conference set for 12/8/2020 at 11:00 AM by telephone
before Chief Judge Pamela Pepper. The parties are to appear by calling the court's
conference line at 888-557-8511 and entering access code 4893665#. (cc: all counsel)(cb)

12/07/2020

46 RESPONSE to Motion filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean

13

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

13/17

12/11/2020

Eastern District of Wisconsin - Live

Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission re 44
MOTION To Hold Consolidated Evidentiary Hearing/Trial . (Murphy, Sean)
12/07/2020

47 AMICUS BRIEF in Opposition to 6 MOTION for Injunctive Relief filed by James
Gesbeck. (asc)

12/07/2020

48 NOTICE of Appearance by David S Lesser on behalf of Democratic National Committee.
Attorney(s) appearing: David S. Lesser (Lesser, David)

12/07/2020

49 NOTICE of Appearance by Jamie Dycus on behalf of Democratic National Committee.
Attorney(s) appearing: Jamie S. Dycus (Dycus, Jamie)

12/07/2020

50 NOTICE of Appearance by Stephen Morrissey on behalf of Tony Evers. Attorney(s)
appearing: Stephen E. Morrissey (Morrissey, Stephen)

12/07/2020

51 MOTION to Dismiss Plaintiff's Amended Complaint by Tony Evers. (Mandell, Jeffrey)

12/07/2020

52 RESPONSE to Motion filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean
Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission re 2
MOTION for Temporary Restraining Order . (Murphy, Sean)

12/07/2020

53 MOTION to Dismiss by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean
Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission.
(Murphy, Sean)

12/07/2020

54 BRIEF in Support filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean
Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission re 53
MOTION to Dismiss . (Murphy, Sean)

12/07/2020

55 BRIEF in Opposition filed by Tony Evers re 10 Emergency MOTION to Amend/Correct
Docket # 6: PLAINTIFFS CORRECTED MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF . (Attachments: # 1 Exhibit
1 WVA v. WEC, # 2 Exhibit 2 Trump v. Boockvar, # 3 Exhibit 3 Wood v. Raffensperger, #
4 Exhibit 4 Wood v. Raffensperger (11th Cir.), # 5 Exhibit 5 King v. Whitmer TRO
Decision, # 6 Exhibit 6 Zilisch v. R.J. Reynolds, # 7 Exhibit 7 Consolidate Water v..40
Acres, # 8 Exhibit 8 Jefferson v. Dane County, # 9 Exhibit 9 Bognet v. Secretary of
Commonwealth, # 10 Exhibit 10 O'Bright v. Lynch Order, # 11 Exhibit 11 Trump v. Evers
Order)(Mandell, Jeffrey)

12/07/2020

56 MOTION for Leave to File Amicus Curiae Brief by Wisconsin State Conference NAACP,
Dorothy Harrell, Wendell J. Harris, Sr., Earnestine Moss. (Goode, Joseph)

12/07/2020

57 BRIEF in Opposition filed by Democratic National Committee re 10 Emergency
MOTION to Amend/Correct Docket # 6: PLAINTIFFS CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF .
(Attachments: # 1 Exhibit 1 - Washington Voters Alliance Case, # 2 Exhibit 2 - Trump v.
Evers Case, # 3 Exhibit 3 - Mueller v. Jacobs Case, # 4 Exhibit 4 - King v. Benson Case, #
5 Exhibit 5 - March 29, 2020 Guidance, # 6 Exhibit 6 - Jefferson v. Dane Case, # 7 Exhibit
7 - October 18, 2016 Guidance, # 8 Exhibit 8 - Election Manual, # 9 Exhibit 9 - November
10, 2020 Guidance)(Umberger, Michelle)

12/07/2020

58 UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed by Marge Bostelmann, Julie M
Glancey, Ann S Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen,
Wisconsin Elections Commission (Attachments: # 1 Exhibit 1- Martel v. Condos, # 2
Exhibit 2- Moore v. Circosta, # 3 Exhibit 3- Donald J. Trump for President v. Cegavske, #
4 Exhibit 4- Bognet v. Secretary of the Commonwealth of Pennsylvania, # 5 Exhibit 5Donald J. Trump for President v. Boockvar, # 6 Exhibit 6- Donald J. Trump for President
v. Pennsylvania, # 7 Exhibit 7- Wood v. Raffensperger, # 8 Exhibit 8- King v. Whitmer)
(Murphy, Sean)

14

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

14/17

12/11/2020

Eastern District of Wisconsin - Live

12/07/2020

59 BRIEF in Support filed by Tony Evers re 51 MOTION to Dismiss Plaintiff's Amended
Complaint . (Attachments: # 1 Exhibit 1 Whitake v. Kenosha, # 2 Exhibit 2 Bognet v.
Secretary of Commenwealth, # 3 Exhibit 3 Hotze v. Hollins, # 4 Exhibit 4 Wood v.
Raffensperger, # 5 Exhibit 5 Wood v. Raffensperger (11th Cir.), # 6 Envelope 6 Moore v.
Circosta, # 7 Exhibit 7 Trump v. Evers, # 8 Exhibit 8 WVA v. WEC, # 9 Exhibit 9 Trump
Notice of Appeal, # 10 Exhibit 10Trump v. Biden Consolidation Order, # 11 Exhibit 11
Andino v. Middleton, # 12 Exhibit 12 Massey v. Coon, # 13 Exhibit 13 Balsam v. New
Jersey, # 14 Exhibit 14 Thompson v. Alabama, # 15 Exhibit 15 Braynard Expert Report)
(Mandell, Jeffrey)

12/07/2020

60 BRIEF in Opposition filed by Tony Evers re 44 MOTION To Hold Consolidated
Evidentiary Hearing/Trial . (Mandell, Jeffrey)

12/08/2020

61 NOTICE of Appearance by Jon Greenbaum on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s) appearing:
Jon Greenbaum (Greenbaum, Jon)

12/08/2020

62 NOTICE of Appearance by Allison E Laffey on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s) appearing:
Allison E. Laffey (Laffey, Allison)

12/08/2020

63 NOTICE of Appearance by John W Halpin on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s) appearing:
John W. Halpin (Halpin, John)

12/08/2020

64 NOTICE of Appearance by Mark M Leitner on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s) appearing:
Mark M. Leitner (Leitner, Mark)

12/08/2020

65 NOTICE of Appearance by Joseph S Goode on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s) appearing:
Joseph S. Goode (Goode, Joseph)

12/08/2020

66 NOTICE of Appearance by Ezra D Rosenberg on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s) appearing:
Ezra D. Rosenberg (Rosenberg, Ezra)

12/08/2020

67 NOTICE of Appearance by Jacob Conarck on behalf of Wisconsin State Conference
NAACP. Attorney(s) appearing: Jacob P. Conarck (Conarck, Jacob)

12/08/2020

68 NOTICE of Appearance by Seth P Waxman on behalf of Democratic National Committee.
Attorney(s) appearing: Seth P. Waxman (Waxman, Seth)

12/08/2020

69 ORDER signed by Chief Judge Pamela Pepper on 12/8/2020 GRANTING 56 Motion for
Leave to File Amicus Curiae Brief filed by Earnestine Moss, Dorothy Harrell, Wisconsin
State Conference NAACP, Wendell J. Harris, Sr. (cc: all counsel)(cb)

12/08/2020

70

12/08/2020

71 Court Minutes and Order from the Status Conference held before Chief Judge Pamela
Pepper on 12/8/2020. The court DENIES the 44 Motion for Consolidated Evidentiary
Hearing and Trial on the Merits. The court ORDERS the plaintiff to file his responses to
the motions to dismiss (Dkt. Nos. 51 and 53) and reply brief in support of his motion for
injunctive relief (Dkt. No. 10) by December 8, 2020 at 5 p.m. CST. The court ORDERS
that if the defendants and amici wish to file reply briefs in support of the motions to
dismiss, they must do so by December 9, 2020 at 3 p.m. CST. (Court Reporter Thomas
Malkiewicz.) (kgw)

15

Audio of statue conference held on 12/8/2020 at 11:08 a.m.; File Size (51.1 MB) (kgw)

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

15/17

12/11/2020

Eastern District of Wisconsin - Live

12/08/2020

72 BRIEF in Opposition filed by William Feehan re 51 MOTION to Dismiss Plaintiff's
Amended Complaint, 10 Emergency MOTION to Amend/Correct Docket # 6:
PLAINTIFFS CORRECTED MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF , 53 MOTION to Dismiss and Consolidated in
Reply/Response to Response Briefs of Defendants and Opposition Briefs of Amici.
(Attachments: # 1 Exhibit, # 2 Exhibit)(Dean, Michael)

12/09/2020

73 REPLY BRIEF in Support filed by Tony Evers re 51 MOTION to Dismiss Plaintiff's
Amended Complaint . (Attachments: # 1 Exhibit 1 American Commercial Barge Lines v.
Reserve FTL, # 2 Exhibit 2 Trump v. Secretary of Pennsylvania)(Mandell, Jeffrey)

12/09/2020

74 ORDER signed by Chief Judge Pamela Pepper on 12/9/2020. 14 James Gesbeck's motion
to intervene DENIED. 33 James Gesbeck's Civil LR 7(h) motion to intervene GRANTED
to extent it asks the court to expedite ruling on motion to intervene and DENIED to extent
it asks the court to grant motion to intervene. (cc: all counsel)(cb)

12/09/2020

75 MOTION to Seal Document Public Motion Prior to Filing Sealed/Restricted Exhibits by
William Feehan. (Attachments: # 1 Exhibit, # 2 Exhibit)(Dean, Michael)

12/09/2020

76 BRIEF in Support filed by William Feehan re 75 MOTION to Seal Document Public
Motion Prior to Filing Sealed/Restricted Exhibits . (Dean, Michael)

12/09/2020

77 REPLY BRIEF in Support filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs,
Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission
re 53 MOTION to Dismiss . (Murphy, Sean)

12/09/2020

78 UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed by Marge Bostelmann, Julie M
Glancey, Ann S Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen,
Wisconsin Elections Commission (Attachments: # 1 Exhibit 1- King, # 2 Exhibit 2Bognet, # 3 Exhibit 3- Boockvar, # 4 Exhibit 4- Hotze, # 5 Exhibit 5- Massey, # 6 Exhibit
6- Aguila Management, # 7 Exhibit 7- Solow Building Co.)(Murphy, Sean)

12/09/2020

79 BRIEF in Opposition filed by Dorothy Harrell, Wendell J. Harris, Sr., Earnestine Moss,
Wisconsin State Conference NAACP re 6 MOTION to Amend/Correct Docket # 2:
PLAINTIFFS MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF , 10 Emergency MOTION to Amend/Correct Docket # 6:
PLAINTIFFS CORRECTED MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF . (Goode, Joseph)

12/09/2020

80 NOTICE of Appearance by Christopher Bouchoux on behalf of Democratic National
Committee. Attorney(s) appearing: Christopher Bouchoux (Bouchoux, Christopher)

12/09/2020

81 NOTICE by Tony Evers Notice of Supplemental Authority (Brook, Davida)

12/09/2020

82 ORDER signed by Chief Judge Pamela Pepper on 12/9/2020 DENYING 75 plaintiff's
Motion to Seal Document Public Motion Prior to Filing Sealed/Restricted Exhibits. (cc:
all counsel)(cb)

12/09/2020

83 ORDER DISMISSING CASE signed by Chief Judge Pamela Pepper on 12/9/2020. 51
Defendant Evers's motion to dismiss plaintiff's amended complaint GRANTED. 53
Defendants Wisconsin Elections Commission and its Members motion to dismiss
GRANTED. 6 Plaintiff's corrected motion for declaratory, emergency and permanent
injunctive relief DENIED as moot. 10 Plaintiff's amended motion for temporary
restraining order and preliminary injunction to be considered in an expedited manner
DENIED as moot. 9 Plaintiff's amended complaint for declaratory, emergency and
permanent injunctive relief DISMISSED. (cc: all counsel)(cb)

12/10/2020

84 NOTICE OF APPEAL as to 83 Order Dismissing Case,,, Terminate Motions,, by William
Feehan. Filing Fee PAID $505, receipt number AWIEDC-3664794 (cc: all counsel) (Dean,

16

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

16/17

12/11/2020

Eastern District of Wisconsin - Live

Michael)
12/10/2020

85 JUDGMENT signed by Deputy Clerk and approved by Chief Judge Pamela Pepper on
12/9/2020. (cc: all counsel)(cb)

12/10/2020

86 Transmission of Notice of Appeal and Docket Sheet to US Court of Appeals re 84 Notice
of Appeal (lmf)

12/10/2020

87 Attorney Cover Letter re: 84 Notice of Appeal (Attachments: # 1 Docket Sheet)(lmf)

12/10/2020

88 USCA Case Number 20-3396 re: 84 Notice of Appeal filed by William Feehan. (lmf)

PACER Service Center
Transaction Receipt
12/11/2020 13:48:46
PACER Login: ChrisAlfredo

17

Client Code:

Description:

Docket Report Search Criteria: 2:20-cv-01771-PP

Billable Pages:

16

https://ecf.wied.uscourts.gov/cgi-bin/DktRpt.pl?333217032361579-L_1_0-1

Cost:

1.60

17/17

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN and DERRICK VAN
ORDEN,
v.

CASE NO. 2:20-cv-1771

Plaintiffs.

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.

COMPLAINT FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF

NATURE OF THE ACTION
1. This civil action brings to light a massive election fraud, multiple violations of the
Wisconsin Election Code, see, e.g., Wis. Stat. §§ 5.03, et. seq., in addition to the Election and
Electors Clauses and Equal Protection Clause of the U.S. Constitution. These violations occurred
during the 2020 General Election throughout the State of Wisconsin, as set forth in the affidavits
of dozens of eyewitnesses and the statistical anomalies and mathematical impossibilities detailed
in the affidavits of expert witnesses.
2. The scheme and artifice to defraud was for the purpose of illegally and fraudulently
1

18

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 52 Document 1

manipulating the vote count to manufacture an election of Joe Biden as President of the United
States, and also of various down ballot democrat candidates in the 2020 election cycle. The fraud
was executed by many means, but the most fundamentally troubling, insidious, and egregious ploy
was the systemic adaptation of old-fashioned “ballot-stuffing.” It has now been amplified and
rendered virtually invisible by computer software created and run by domestic and foreign actors
for that very purpose. This Complaint details an especially egregious range of conduct in
Milwaukee County and the City of Milwaukee, along with Dane County, La Crosse County,
Waukesha County, St. Croix County, Washington County, Bayfield County, Ozaukee County and
various other counties throughout the Third District and throughout Wisconsin employing
Dominion Systems, though this conduct occurred throughout the State at the direction of
Wisconsin state election officials.
3. The multifaceted schemes and artifices implemented by Defendants and their
collaborators to defraud resulted in the unlawful counting, or fabrication, of hundreds of thousands
of illegal, ineligible, duplicate or purely fictitious ballots in the State of Wisconsin, that collectively
add up to multiples of Biden’s purported lead in the State of 20,565 votes.
4. While this Complaint, and the eyewitness and expert testimony incorporated herein,
identify with specificity sufficient ballots required to set aside the 2020 General Election results,
the entire process is so riddled with fraud, illegality, and statistical impossibility that this Court,
and Wisconsin’s voters, courts, and legislators, cannot rely on, or certify, any numbers resulting
from this election. Accordingly, this Court must set aside the results of the 2020 General Election
and grant the declaratory and injunctive relief requested herein.

2

19

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 52 Document 1

Dominion Voting Systems Fraud and Manipulation
5. The fraud begins with the election software and hardware from Dominion Voting
Systems Corporation (“Dominion”) used by the Wisconsin Board of State Canvassers. The
Dominion systems derive from the software designed by Smartmatic Corporation, which became
Sequoia in the United States.
6. Smartmatic and Dominion were founded by foreign oligarchs and dictators to ensure
computerized ballot-stuffing and vote manipulation to whatever level was needed to make certain
Venezuelan dictator Hugo Chavez never lost another election. See Ex. 1, Redacted Declaration of
Dominion Venezuela Whistleblower (“Dominion Whistleblower Report”). Notably, Chavez
“won” every election thereafter.
7. As set forth in the Dominion Whistleblower Report, the Smartmatic software was
contrived through a criminal conspiracy to manipulate Venezuelan elections in favor of dictator
Hugo Chavez:
Importantly, I was a direct witness to the creation and operation of an electronic
voting system in a conspiracy between a company known as Smartmatic and the
leaders of conspiracy with the Venezuelan government. This conspiracy
specifically involved President Hugo Chavez Frias, the person in charge of the
National Electoral Council named Jorge Rodriguez, and principals, representatives,
and personnel from Smartmatic. The purpose of this conspiracy was to create and
operate a voting system that could change the votes in elections from votes against
persons running the Venezuelan government to votes in their favor in order to
maintain control of the government. In mid-February of 2009, there was a national
referendum to change the Constitution of Venezuela to end term limits for elected
officials, including the President of Venezuela. The referendum passed. This
permitted Hugo Chavez to be re-elected an unlimited number of times. . . .
Smartmatic’s electoral technology was called “Sistema de Gestión Electoral” (the
“Electoral Management System”). Smartmatic was a pioneer in this area of
computing systems. Their system provided for transmission of voting data over the
internet to a computerized central tabulating center. The voting machines
themselves had a digital display, fingerprint recognition feature to identify the
voter, and printed out the voter’s ballot. The voter’s thumbprint was linked to a
computerized record of that voter’s identity. Smartmatic created and operated the
3

20

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 52 Document 1

entire system. Id. ¶¶ 10 & 14.
8. A core requirement of the Smartmatic software design ultimately adopted by Dominion
for Wisconsin’s elections was the software’s ability to hide its manipulation of votes from any
audit. As the whistleblower explains:
Chavez was most insistent that Smartmatic design the system in a way that the
system could change the vote of each voter without being detected. He wanted the
software itself to function in such a manner that if the voter were to place their
thumb print or fingerprint on a scanner, then the thumbprint would be tied to a
record of the voter’s name and identity as having voted, but that voter would not
tracked to the changed vote. He made it clear that the system would have to be setup
to not leave any evidence of the changed vote for a specific voter and that there
would be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic agreed to
create such a system and produced the software and hardware that accomplished
that result for President Chavez. Id. ¶15.
9. The design and features of the Dominion software do not permit a simple audit to reveal
its misallocation, redistribution, or deletion of votes. First, the system’s central accumulator does
not include a protected real-time audit log that maintains the date and time stamps of all significant
election events. Key components of the system utilize unprotected logs. Essentially this allows
an unauthorized user the opportunity to arbitrarily add, modify, or remove log entries, causing the
machine to log election events that do not reflect actual voting tabulations—or more specifically,
do not reflect the actual votes of or the will of the people.1
10. This Complaint will show that Dominion violated physical security standards by
connecting voting machines to the Internet, allowing Dominion, domestic third parties or hostile
foreign actors to access the system and manipulate election results, and moreover potentially to

1

See Ex. 7, August 24, 2020 Declaration of Harri Hursti, ¶¶45-48 (expert testimony in Case
1:17-cv-02989 in the U.S. District Court for the Northern District of Georgia). The Texas
Secretary of State refused to certify Dominion for similar reasons as those cited by Mr. Hursti. See
Ex. 9, State of Texas Secretary of State, Elections Division, Report of Review of Dominion Voting
Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020).
4

21

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 52 Document 1

cover their tracks due to Dominion’s unprotected log. Accordingly, a thorough forensic
examination of Dominion’s machines and source code (pursuant to Wisconsin Statute § 5.905) is
required to document these instances of voting fraud, as well as Dominion’s systematic violations
of the Voting Rights Act record retention requirements through manipulation, alteration,
destruction and likely foreign exfiltration of voting records. See 52 U.S.C. § 20701.
11. These and other problems with Dominion’s software have been widely reported in the
press and been the subject of investigations. In certifying Dominion Voting Systems Democracy
Suite, Wisconsin officials disregarded all the concerns that caused Dominion software to be
rejected by the Texas Board of elections in 2020 because it was deemed vulnerable to undetected
and non-auditable manipulation. Texas denied Certification because of concerns that it was not
safe from fraud or unauthorized manipulation. (See Exhs 11 A and B).
12. An industry expert, Dr. Andrew Appel, Princeton Professor of Computer Science and
Election Security Expert has recently observed, with reference to Dominion Voting machines: “I
figured out how to make a slightly different computer program that just before the polls were
closed, it switches some votes around from one candidate to another. I wrote that computer
program into a memory chip and now to hack a voting machine you just need 7 minutes alone with
a screwdriver.”2
13. In addition to the Dominion computer fraud, this Complaint identifies several additional
categories of “traditional” voting fraud that occurred as a direct result of Defendant Wisconsin
Election Commission (“WEC”) and other Defendants directing Wisconsin clerks and other
election officials to ignore or violate the express requirements of the Wisconsin Election Code.

2

Andrew W. Appel, et al., “Ballot Marking Devices (BMDs) Cannot Assure the Will of the
Voters” at (Dec. 27, 2019),( attached hereto as Exh. 10 (“Appel Study”)).
5

22

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 52 Document 1

First, the WEC issued “guidance” to county and municipal clerks not to reject “indefinitely
confined” absentee voters, even if the clerks possess “reliable information” that the voter is no
longer indefinitely confined, in direct contravention of Wisconsin Statute § 6.86(2)(6), which
states that clerks must remove such voters. Second, the WEC issued further guidance directing
clerks – in violation of Wisconsin Statute § 6.87(6)(d), which states that an absentee envelope
certification “is missing the address of a witness, the ballot may not be counted” – to instead fill
in the missing address information.
14. This Complaint presents expert witness testimony demonstrating that several hundred
thousand illegal, ineligible, duplicate or purely fictitious votes must be thrown out, in particular:
A. A report from Dr. William Briggs, showing that there were approximately
29,594 absentee ballots listed as “unreturned” by voters that either never
requested them, or that requested and returned their ballots;
B. Reports from Redacted Expert Witnesses who can show an algorithm was used
to pick a winner.
15. In the accompanying redacted declaration of a former electronic intelligence analyst with
305th Military Intelligence with experience gathering SAM missile system electronic intelligence,
the Dominion software was accessed by agents acting on behalf of China and Iran in order to
monitor and manipulate elections, including the most recent US general election in 2020. (See Ex.
12, copy of redacted witness affidavit).
16. These and other “irregularities” demonstrate that at least 318,012 illegal ballots were
counted in Wisconsin. This provides the Court with sufficient grounds to set aside the results of
the 2020 General Election and provide the other declaratory and injunctive relief requested herein.
JURISDICTION AND VENUE
17. This Court has subject matter under 28 U.S.C. § 1331 which provides, “The district courts
shall have original jurisdiction of all civil actions arising under the Constitution, laws, or treaties
6

23

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 52 Document 1

of the United States.”
18. This Court also has subject matter jurisdiction under 28 U.S.C. § 1343 because this action
involves a federal election for President of the United States. “A significant departure from the
legislative scheme for appointing Presidential electors presents a federal constitutional question.”
Bush v. Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring); Smiley v. Holm, 285 U.S.
355, 365 (1932).
19. The jurisdiction of the Court to grant declaratory relief is conferred by 28 U.S.C. §§
2201 and 2202 and by Rule 57, Fed. R. Civ. P.
20. This Court has jurisdiction over the related Wisconsin constitutional claims and state-law
claims under 28 U.S.C. § 1367.
21. Venue is proper because a substantial part of the events or omissions giving rise to the
claim occurred in the Eastern District. 28 U.S.C. § 1391(b) & (c).
22. Because the United States Constitution reserves for state legislatures the power to set the
time, place, and manner of holding elections for Congress and the President, state executive
officers have no authority to unilaterally exercise that power, much less flout existing legislation.
THE PARTIES
23. Plaintiff William Feehan, is a registered Wisconsin voter and a nominee of the Republican
Party to be a Presidential Elector on behalf of the State of Wisconsin. Mr. Feehan is a resident of
the City of La Crosse and La Crosse County, Wisconsin.
24. Presidential Electors “have a cognizable interest in ensuring that the final vote tally
reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized
injury to candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
7

24

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 52 Document 1

of state officials implementing or modifying State election laws); see also McPherson v. Blacker,
146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per
curiam).
25. Plaintiff Feehan has standing to bring this action as a voter and as a candidate for the
office of Elector under Wis. Stat. §§ 5.10, et seq (election procedures for Wisconsin electors). As
such, Presidential Electors “have a cognizable interest in ensuring that the final vote tally reflects
the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury
to candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
of state officials in implementing or modifying State election laws); see also McPherson v.
Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000)
(per curiam).
26. Plaintiff Derrick Van Orden is a former United States Navy SEAL, who was the 2020
Republican nominee for Wisconsin’s Third Congressional District Seat for the United States
House of Representatives. Mr. Van Orden is a resident of Hager City, Pierce County, Wisconsin.
27. Mr. Van Orden “lost” by approximately 10,000 votes to the Democrat incumbent, U.S.
Representative Ron Kind. Because of the illegal voting irregularities as will be shown below, Mr.
Van Orden seeks to have a new election ordered by this court in the Third District, with that
election being conducted under strict adherence with the Wisconsin Election Code.
28. Plaintiff Van Orden has standing as the ostensible “defeated” candidate in the Third
Congressional District race, and seeks an order for a new election, complying with Wisconsin
election law. Plaintiff Van Order received 189,524 votes or 48.67% as tallied versus Ron Kind
who received 199,870 or 51.33% of the votes as reportedly tallied.
8

25

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 52 Document 1

29. Plaintiffs brings this action to prohibit certification of the election results for the Office
of President of the United States in the State of Wisconsin and to obtain the other declaratory and
injunctive relief requested herein. Those results were certified by Defendants on November 30,
2020, indicating a plurality for Mr. Biden of 20,565 votes out of 3,240,867 cast.
30. The Defendants are Wisconsin Elections Commission (“WEC”), a state agency, and its
members Ann S. Jacobs, Mark L. Thomsen, Marge Bostelman, Julie M. Glancey, Dean Knudson,
and Robert F. Spindell, Jr., in their official capacities
31. Defendant Governor Tony Evers is named as a defendant in his official capacity as
Wisconsin’s governor.
32. Defendant WEC was created in 2015 by the Wisconsin Legislature as an independent
agency under the Executive branch to administer Wisconsin’s election laws. Wis. Stat. §§ 5.03 &
15.61. The WEC is authorized to adopt administrative rules pursuant to Chapter 227 of the
Wisconsin Statutes, but nothing under Wisconsin’s election laws authorizes the WEC to issue any
documents, make any oral determinations or instruct governmental officials administering
elections to perform any act contrary to Wisconsin law governing elections.
33. Furthermore, the Wisconsin Legislature also created municipal elections commissions for
municipalities with a population greater than 500,000 and a county elections commissions for
counties with a population greater than 750,000. Wis Stat. § 7.20. As a result, the City of
Milwaukee Elections Commission was created as well as the Milwaukee County Elections
Commission and the Dane County Elections Commission. These county and municipal elections
commissions are responsible for administering the elections in their respective jurisdictions.

9

26

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 52 Document 1

STATEMENT OF FACTS
34. Plaintiffs bring this action under 42 U.S.C. §§ 1983 and 1988, to remedy deprivations of
rights, privileges, or immunities secured by the Constitution and laws of the United States and to
contest the election results, and the corollary provisions under the Wisconsin Constitution.
35. The United States Constitution sets forth the authority to regulate federal elections. With
respect to congressional elections, the Constitution provides:
The Times, Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the Legislature thereof; but the
Congress may at any time by Law make or alter such Regulations, except as to the
Places of choosing Senators.
U.S. CONST. art. I, § 4 (“Elections Clause”).
36. With respect to the appointment of presidential electors, the Constitution provides:
Each State shall appoint, in such Manner as the Legislature thereof may direct, a
Number of Electors, equal to the whole Number of Senators and Representatives to
which the State may be entitled in the Congress: but no Senator or Representative,
or Person holding an Office of Trust or Profit under the United States, shall be
appointed an Elector.
U.S. CONST. art. II, § 1 (“Electors Clause”).
37. None of Defendants is a “Legislature” as required under the Elections Clause or Electors
Clause to set the rules governing elections. The Legislature is “‘the representative body which
ma[kes] the laws of the people.’” Smiley, 285 U.S. 365. Regulations of congressional and
presidential elections, thus, “must be in accordance with the method which the state has prescribed
for legislative enactments.” Id. at 367; see also Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 135 S. Ct. 2652, 2668 (U.S. 2015).
38. The WEC certified the Presidential Election results on November 30, 2020.

The

Presidential election results in Wisconsin show a difference of 20,565 “tallied” votes in favor of
former Vice-President Joe Biden over President Trump.
10

27

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 52 Document 1

39. Based upon all the allegations of fraud, statutory violations, and other misconduct, as
stated herein and in the attached affidavits, it is necessary to enjoin the certification of the election
results pending a full investigation and court hearing, and to order an independent audit of the
November 3, 2020 election to ensure the accuracy and integrity of the election.
I. VIOLATIONS OF WISCONSIN ELECTION CODE
A. WEC Directed Clerks to Violate Wisconsin Election Code Requirements for
Absentee Voting by “Indefinitely Confined” without Photo ID.
40. The Wisconsin State Legislature adopted Act 23 in 2011 to require Wisconsin electors to
present an identification containing a photograph, such as a driver’s license, to either a municipal or
county clerk, when registering to vote and when voting. Wis. Stat. §§ 6.34; 6.79 (2). The Wisconsin
State Legislature adopted the photo ID requirement to deter the casting of ballots by persons either not
eligible to vote or persons fraudulently casting multiple ballots. League of Women Voters of
Wisconsin Education Network, Inc. v. Walker, 851 N.W.2d 302, 314 (Wis. 2014).
41. Wisconsin’s absentee voting is governed by Wisconsin Statutes § 6.84 - § 6.89. Under
Wisconsin Statutes §6.86, every absentee elector applicant must present a photo ID when registering
to vote absentee except absentee voters who registered as “indefinitely confined,” Wis. Stat. §6.86
(ac), meaning someone confined “because of age, physical illness or infirmity or is disabled for an
indefinite period.” Wis. Stat. § 6.86(2)(a). As a result, Wisconsin election procedures for voting
absentee based on “indefinitely confined” status circumvent the photo ID requirement, creating an
avenue for fraudulent voting.
42. In order to ensure that only those who are “indefinitely confined” may use the “indefinitely
confined” absentee ballot in an election, Wisconsin Statutes §6.86 provides that any elector who files
an application for an absentee ballot based on indefinitely confined status may not use the absentee
ballot if the electoral is no longer “indefinitely confined.” Wisconsin Statutes § 6.86 (2)(b) further
11

28

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 52 Document 1

provides that the municipal clerk “shall remove the name of any other elector from the list upon
request of the elector or upon receipt of reliable information that an elector no longer qualifies for
the service.”
43. Despite this clear statutory requirement, the Administrator of the Wisconsin Election
Commission, Meagan Wolfe, issued a written directive on May 13, 2020 to the clerks across the
State of Wisconsin stating that the clerks cannot remove an allegedly “indefinitely confined”
absentee voter from the absentee voter register if the clerk had “reliable information” that an
allegedly “indefinitely confined” absentee voter is no longer “indefinitely confined.” The directive
specifically stated:
Can I deactivate an absentee request if I believe the voter is not indefinitely
confined? No. All changes to status must be made in writing and by the voter’s
request. Not all medical illnesses or disabilities are visible or may only impact the
voter intermittently. (See WEC May 13, 2020 Guidance Memorandum).
44. The WEC’s directive thus directly contradicts Wisconsin law, which specifically provides
that clerks “shall” remove an indefinitely confined voter from the absentee voter list if the clerk
obtains “reliable information” that the voter is no longer indefinitely confined.
45. As a result of the directive, clerks did not remove from the absentee voter lists maintained
by their jurisdictions the absentee voters who claimed “indefinitely confined” status but who in
fact were no longer “indefinitely confined.”

This resulted in electors who were allegedly

“indefinitely confined” absentee voters casting ballots as “indefinitely confined” absentee voters
who were not actually “indefinitely confined” absentee voters.
B. WEC Directed Clerks to Violate Wisconsin Law Prohibiting Counting of
Absentee Ballot Certificates Missing Witness Addresses.
46. In 2015, the Wisconsin Legislature passed Act 261, amending Wisconsin’s election laws,
including a requirement, codified as Wisconsin Statute § 6.87(d), that absentee ballots include both
12

29

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 52 Document 1

elector and witness certifications, which must include the address of the witness. If the address
of the witness is missing from the witness certification, however, “the ballot may not be counted.”
Id.
47. On October 18, 2016, WEC reacted to this legislation by issuing a memorandum, which,
among other things, permitted clerks to write in the witness address onto the absentee ballot
certificate itself, effectively nullifying this express requirement. (See WEC October 18, 2016
Guidance Memorandum).

Wisconsin election officials reiterated this unlawful directive in

publicly posted training videos. For example, in a Youtube video posted before the November 3,
2020 General Election by Clarie Woodall-Voog of the Milwaukee Elections Commission, Ms.
Woodall-Voog advised clerks that missing items “like witness address may be written in red.”3
C. WEC Directed Clerks to Illegally Cure Absentee Ballots by Filling in Missing
Information on Absentee Ballot Certificates and Envelopes.
48. On October 19, 2020, WEC instructed its clerks that, without any legal basis in the
Wisconsin Election Code, they could simply fill in missing witness or voter certification
information using, e.g., personal knowledge, voter registration information, or calling the voter or
witness. The WEC further advised that voters or witnesses could cure any missing information at
the polling place, again without citing any authority to do so under Wisconsin Election Code.
II. EXPERT WITNESS TESTIMONY:
EVIDENCE OF WIDESPREAD VOTER FRAUD
A. Approximately 15,000 Wisconsin Mail-In Ballots Were Lost, and
Approximately 18,000 More Were Fraudulently Recorded for Voters who
Never Requested Mail-In Ballots.
49. The attached report of William M. Briggs, Ph.D. (“Dr. Briggs Report”) summarizes the
multi-state phone survey that includes a survey of Wisconsin voters collected by Matt Braynard,

3

See https://www.youtube.com/watch?v=hbm-pPaYiqk (video a 10:43 to 11:07).
13

30

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 52 Document 1

which was conducted from November 15-17, 2020. See Ex. 101, Dr. Briggs Report at 1, and Att.
1 (“Braynard Survey”). The Briggs analysis identified two specific errors involving unreturned
mail-in ballots that are indicative of voter fraud, namely: “Error #1: those who were recorded as
receiving absentee ballots without requesting them;” and “Error #2: those who returned absentee
ballots but whose votes went missing (i.e., marked as unreturned).” Id. Dr. Briggs then conducted
a parameter-free predictive model to estimate, within 95% confidence or prediction intervals, the
number of ballots affected by these errors out of a total of 96,771 unreturned mail-in ballots for
the State of Wisconsin.
50. With respect to Error #1, Dr. Briggs’ analysis estimated that 16,316-19,273 ballots out
of the total 96,771 unreturned ballots were recorded for voters who had not requested them. Id.
With respect to Error #2, he found 13,991 – 16,757 ballots out of 96,771 unreturned ballots
recorded for voters who did return their ballots were recorded as being unreturned. Id.
Taking the average of the two types of errors together, 29,594 ballots, or 31% of the total, are
“troublesome.”
51. These errors are not only conclusive evidence of widespread fraud by the State of
Wisconsin, but they are fully consistent with the fact witness statements cited above regarding the
evidence about Dominion presented below insofar as these unreturned absentee ballots
represent a pool of blank ballots that could be filled in by third parties to shift the election
to Joe Biden, and also present the obvious conclusion that there must be absentee ballots
unlawfully ordered by third parties that were returned.
52. With respect to Error #1, Dr. Briggs’ analysis demonstrates that approximately 17,795
absentee ballots were sent to someone besides the registered voter named in the request, and
thus could have been filled out by anyone and then submitted in the name of another voter.
14

31

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 52 Document 1

Regarding ballots ordered by third parties that were voted, those would no longer be in the
unreturned pool and therefore cannot be estimated from this data set.
53. With respect to Error #2, Dr. Briggs’ analysis indicates that approximately 15,374
absentee ballots were either lost or destroyed (consistent with allegations of Trump ballot
destruction) and/or were replaced with blank ballots filled out by election workers, Dominion
or other third parties. Dr. Briggs’ analysis shows that 31% of “unreturned ballots” suffer from
one of the two errors above – which is consistent with his findings in the four other States analyzed
(Arizona 58%, Georgia 39%, Pennsylvania 37%, and Wisconsin 45%) – and provides further
support that these widespread “irregularities” or anomalies were one part of a much larger multistate fraudulent scheme to rig the 2020 General Election for Joe Biden.
B. Nearly 7,000 Ineligible Voters Who Have Moved Out-of-State Illegally Voted
in Wisconsin.
54. Evidence compiled by Matt Braynard using the National Change of Address (“NCOA”)
Database shows that 6,207 Wisconsin voters in the 2020 General Election moved out-of-state prior
to voting, and therefore were ineligible. Mr. Braynard also identified 765 Wisconsin voters who
subsequently registered to vote in another state and were therefore ineligible to vote in the 2020
General Election. The merged number is 6,966 ineligible voters whose votes must be removed
from the total for the 2020 General Election.4
C. A Statistical Study Reveals that Biden Overperformed in those Precincts that
Relied on Dominion Voting Machines
55. From November 13th, 2020 through November 28th, 2020, the Affiant conducted in-depth
statistical analysis of publicly available data on the 2020 U.S. Presidential Election. This data

4

Mr. Braynard posted the results of his analysis on Twitter.
See https://twitter.com/MattBraynard/status/1329700178891333634?s=20. This Complaint
includes a copy of his Report, (attached hereto as Exh. 3).
15

32

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 52 Document 1

included vote counts for each county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee. The Affiant’s analysis yielded
several “red flags” concerning the percentage of votes won by candidate Biden in counties using
voting machines provided by Dominion Voting Systems.

These red flags occurred in several

States in the country, including Wisconsin. (See attached hereto as Exh. 4, copy of redacted
Affiant, B.S. Mathematics and M.S. Statistics).
56. The Affiant began by using Chi-Squared Automatic Interaction Detection (CHAID),
which treats the data in an agnostic way—that is, it imposes no parametric assumptions that could
otherwise introduce bias. Affiant posed the following question: “Do any voting machine types
appear to have unusual results?” The answer provided by the statistical technique/algorithm was
that machines from Dominion Voting Systems (Dominion) produced abnormal results. Id.
57. Subsequent graphical and statistical analysis shows the unusual pattern involving
machines from Dominion occurs in at least 100 counties and multiple States, including Wisconsin.
The results from the vast majority of counties using the Dominion machines is 3 to 5.6 percentage
points higher in favor of candidate Biden. This pattern is seen easily in graphical form when the
results from “Dominion” counties are overlaid against results from “non-Dominion” counties. The
results from “Dominion” counties do not match the results from the rest of the counties in the
United States. The results are clearly statistically significant, with a p-value of < 0.00004. This
translates into a statistical impossibility that something unusual involving Dominion machines is
not occurring. This pattern appears in multiple States, including Wisconsin, and the margin of
votes implied by the unusual activity would easily sway the election results. Id.
58. The following graph shows the pattern. The large red dots are counties in Wisconsin that
use Dominion voting machines. Almost all of them are above the blue prediction line, when in
16

33

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 52 Document 1

normal situations approximately half of them would be below the prediction line (as evidence by
approximately half the counties in the U.S. (blue dots) that are below the blue centerline). The pvalue of statistical analysis regarding the centerline for the red dots (Wisconsin counties with
Dominion machines) is 0.000000049, pointing to a statistical impossibility that this is a “random”
statistical anomaly. Some external force caused this anomaly:

Id.
59. To confirm that Dominion machines were the source of the pattern/anomaly, Affiant
conducted further analysis using propensity scoring using U.S. census variables (including
ethnicities, income, professions, population density and other social/economic data) , which was
used to place counties into paired groups. Such an analysis is important because one concern could
be that counties with Dominion systems are systematically different from their counterparts, so
17

34

Case 2:20-cv-01771-PP Filed 12/01/20 Page 17 of 52 Document 1

abnormalities in the margin for Biden are driven by other characteristics unrelated to the election.
Id.
60. After matching counties using propensity score analysis, the only difference between the
groups was the presence of Dominion machines. This approach again showed a highly statistically
significant difference between the two groups, with candidate Biden again averaging three
percentage points higher in Dominion counties than in the associated paired county.

The

associated p-value is < 0.00005, against indicating a statistical impossibility that something
unusual is not occurring involving Dominion machines. Id.
61. The results of the analysis and the pattern seen in the included graph strongly suggest a
systemic, system-wide algorithm was enacted by an outside agent, causing the results of
Wisconsin’s vote tallies to be inflated by somewhere between three and five point six percentage
points. Statistical estimating yields that in Wisconsin, the best estimate of the number of
impacted votes is 181,440. Id.
62. The summation of sections A through C above provide the following conclusions for the
reports cited above, respectively.
•

returned ballots that were deemed unreturned by the state: 15,374

•

unreturned mail ballots unlawfully ordered by third parties: 17,795

•

votes by persons that moved out of state or subsequently registered to vote
in another state for the 2020 election: 6,966

•

Votes that were improperly relying on the “indefinitely confined”
exemption to voter ID: 96,437

•

And excess votes arising from the statistically significant outperformance
of Dominion machines on behalf of Joe Biden: 181,440

18

35

Case 2:20-cv-01771-PP Filed 12/01/20 Page 18 of 52 Document 1

In Conclusion, the Reports cited above show a total amount of illegal votes identified that
amount to 318,012 or over 15 times the margin by which candidate Biden leads President
Trump in the state of Wisconsin.
III. FACTUAL ALLEGATIONS REGARDING DOMINION VOTING SYSTEMS
63. The State of Wisconsin, in many locations, used either Sequoia, a subsidiary of Dominion
Systems, and or Dominion Systems, Democracy Suite 4.14-D first, and then included Dominion
Systems Democracy Suite 5.0-S on or about January 27, 2017, which added a fundamental
modification: “dial-up and wireless results transmission capabilities to the ImageCast Precinct and
results transmission using the Democracy Suite EMS Results Transfer Manager module.” (See
Exh. 5, attached hereto, a copy of the Equipment for WI election systems).
A. Dominion’s Results for 2020 General Election Demonstrate
Dominion Manipulated Election Results.
64. Affiant Keshel’s findings that reflect the discussion cited above:
While Milwaukee County is focal for transparency and observation violations,
including reporting statistically impossible vote counts in the early morning hours
away from scrutiny, Dane County has surged far past support totals for President
Obama, despite expected difficulties mobilizing student voters to polls. President
Trump has reconsolidated the Republican base in suburban Milwaukee and far
surpassed his 2016 support levels but has been limited in margin growth by
historically improbable Democratic support in these strongholds, which defy years
of data in Wisconsin in which the Republican party surged as the Democratic Party
plunged. Finally, in strong Trump counties showing a double inversion cycle (one
party up, the other down), particularly in rural and exurban Wisconsin, Trump’s
totals are soaring, and against established trends, Biden’s totals are at improbable
levels of support despite lacking registration population
(See attached hereto, Exh. 9, Aff. of Seth Keshel, MBA)

19

36

Case 2:20-cv-01771-PP Filed 12/01/20 Page 19 of 52 Document 1

Id.
65. Keshel provides a graph reflecting the voter returns in a time-series. The highly unlikely
and remarkably convenient attainment of this block of votes provides for a stunning depiction of
the election and generates many questions. The analysis provided by Plaintiffs’ multiple experts,
including data, statistics and cyber, will reveal clear evidence of the multiple frauds that combined
to change the outcome of the 2020 election.

20

37

Case 2:20-cv-01771-PP Filed 12/01/20 Page 20 of 52 Document 1

See Id.
B. Administrative and Judicial Decisions Regarding Dominion’s
Security Flaws.
66. Wisconsin. In 2018, Jill Stein was in litigation with Dominion Voting Systems
(“DVS”) after her 2016 recount request pursuant to WISCONSIN STAT.§5.905(4) wherein
DVS obtained a Court Order requiring confidentiality on information including voting counting
source code, which Dominion claims is proprietary – and must be kept secret from the public. (See
unpublished decision, Wisconsin Court of Appeals, No. 2019AP272 issued April 30, 2020).
Rather than engaging in an open and transparent process to give credibility to Wisconsin’s
Dominion-Democracy Suite voting system, the processes were hidden during the receipt,
review, opening, and tabulation of those votes in direct contravention of Wisconsin’s
Election Code and Federal law.
67. Texas. The same Dominion Democracy Suite was denied certification in Texas by the
21

38

Case 2:20-cv-01771-PP Filed 12/01/20 Page 21 of 52 Document 1

Secretary of State on January 24, 2020, specifically because the “examiner reports raise concerns
about whether Democracy Suite 5.5-A system … is safe from fraudulent or unauthorized
manipulation.”5
68. Georgia. Substantial evidence of this vulnerability was discussed in Judge Amy
Totenberg’s October 11, 2020 Order in the USDC N.D. Ga. case of Curling, et al. v. Kemp, et. al,
Case No. 1:17-cv-02989 Doc. No. 964. See, p. 22-23 (“This array of experts and subject matter
specialists provided a huge volume of significant evidence regarding the security risks and deficits
in the system as implemented in both witness declarations and live testimony at the preliminary
injunction hearing.”); p. 25 (“In particular, Dr. Halderman’s testing indicated the practical
feasibility through a cyber attack of causing the swapping or deletion of specific votes cast and the
compromise of the system through different cyber attack strategies, including through access to
and alteration or manipulation of the QR barcode.”) The full order should be read, for it is eyeopening and refutes many of Dominion’s erroneous claims and talking points.
69. A District Judge found that Dominion’s BMD ballots are not voter verifiable, and they
cannot be audited in a software independent way. The credibility of a BMD ballot can be no greater
than the credibility of Dominion’s systems, which copious expert analysis has shown is deeply
compromised. Similar to the issues in Wisconsin, Judge Totenberg of the District Court of Georgia
Northern District held:
Georgia’s Election Code mandates the use of the BMD system as the uniform mode
of voting for all in-person voters in federal and statewide elections. O.C.G.A. § 212-300(a)(2). The statutory provisions mandate voting on “electronic ballot
markers” that: (1) use “electronic technology to independently and privately mark
a paper ballot at the direction of an elector, interpret ballot selections, ... such
interpretation for elector verification, and print an elector verifiable paper
5

See attached hereto, as Exh. 11, State of Texas Secretary of State, Elections Division, Report
of Review of Dominion Voting Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020) (emphasis
added).
22

39

Case 2:20-cv-01771-PP Filed 12/01/20 Page 22 of 52 Document 1

ballot;” and (2) “produce paper ballots which are marked with the elector’s choices
in a format readable by the elector” O.C.G.A. § 21-2-2(7.1); O.C.G.A. § 21-2300(a)(2). Plaintiffs and other voters who wish to vote in-person are required to
vote on a system that does none of those things. Rather, the evidence shows that
the Dominion BMD system does not produce a voter-verifiable paper ballot or
a paper ballot marked with the voter’s choices in a format readable by the
voter because the votes are tabulated solely from the unreadable QR code.
See Order, pp. 81-82. (Emphasis added).
70. This case was later affirmed in a related case, in the Eleventh Circuit in 2018 related to
Georgia’s voting system in Common Cause Georgia v. Kemp, 347 F. Supp. 3d 1270 (11th Cir.
2018). The Court found,
In summary, while further evidence will be necessary in the future, the Court
finds that the combination of the statistical evidence and witness declarations
in the record here (and the expert witness evidence in the related Curling case
which the Court takes notice of) persuasively demonstrates the likelihood of
Plaintiff succeeding on its claims. Plaintiff has shown a substantial likelihood
of proving that the Secretary’s failure to properly maintain a reliable and
secure voter registration system has and will continue to result in the
infringement of the rights of the voters to cast their vote and have their votes
counted.
Id.at 1294-1295.
71. The expert witness in the above litigation in the United States District Court of
Georgia, Case 1:17-cv-02989-AT, Harri Hursti, specifically testified to the acute security
vulnerabilities, see Ex. 107, wherein he testified or found:
A. “The scanner and tabulation software settings being employed to
determine which votes to count on hand marked paper ballots are
likely causing clearly intentioned votes to be counted” “The voting
system is being operated in Fulton County in a manner that escalates
the security risk to an extreme level” “Votes are not reviewing their
BMD printed ballots, which causes BMD generated results to be unauditable due to the untrustworthy audit trail.” 50% or more of voter
selections in some counties were visible to poll workers. Dominion
employees maintain near exclusive control over the EMS servers. “In
my professional opinion, the role played by Dominion personnel in
Fulton County, and other counties with similar arrangements, should
be considered an elevated risk factor when evaluating the security
23

40

Case 2:20-cv-01771-PP Filed 12/01/20 Page 23 of 52 Document 1

risks of Georgia’s voting system.” Id. ¶26.
B. A video game download was found on one Georgia Dominion system
laptop, suggesting that multiple Windows updates have been made on
that respective computer.
C. There is evidence of remote access and remote troubleshooting which
presents a grave security implication.
D. Certified identified vulnerabilities should be considered an “extreme
security risk.”
E. There is evidence of transfer of control the systems out of the physical
perimeters and place control with a third party off site.
F. USB drives with vote tally information were observed to be removed
from the presence of poll watchers during a recent election.
G. “The security risks outlined above – operating system risks, the
failure to harden the computers, performing operations directly on the
operating systems, lax control of memory cards, lack of procedures,
and potential remote access are extreme and destroy the credibility of
the tabulations and output of the reports coming from a voting
system.” Id. ¶49.
C. Foreign Interference/Hacking and/or Manipulation of Dominion
Results.
1. Evidence of Vulnerability to Foreign Hackers.
72. In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY
ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
actor targeting U.S. state websites to include election websites. CISA and the FBI
assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related
disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election.
24

41

Case 2:20-cv-01771-PP Filed 12/01/20 Page 24 of 52 Document 1

(See CISA and FBI Joint Cyber Security Advisory of October 30, 2020, a copy attached hereto as
Exh. 18.)
73. An analysis of the Dominion software system by a former US Military Intelligence
expert subsequently found that the Dominion Voting system and software are accessible - and was
compromised by rogue actors, including foreign interference by Iran and China. (See Exh. 1,
Spider Declaration, (who remains redacted for security reasons).)
74. The expert does an analysis and explains how by using servers and employees connected
with rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, Dominion allowed foreign adversaries to access data and intentionally provided
access to Dominion’s infrastructure in order to monitor and manipulate elections, including the
most recent one in 2020. (See Exh. 12, Spider Declaration. Several facts are set forth related to
foreign members of Dominion Voting Systems and foreign servers as well as foreign
interference.).
75. Another Declarant first explains the foundations of her opinion and then addresses the
concerns of foreign interference in our elections through hardware components from companies
based in foreign countries with adverse interests. She explains that Dominion Voting Systems
works with SCYTL, and that votes on route, before reporting, go to SCYTL in foreign countries.
On the way, they get mixed and an algorithm is applied, which is done through a secretive process.
The core software used by ALL SCYTL related Election Machine/Software
manufacturers ensures “anonymity” Algorithms within the area of this “shuffling”
to maintain anonymity allows for setting values to achieve a desired goal under the
guise of “encryption” in the trap-door…
(See Exh. 13, Aff. of Computer analysis, at par. 32).
76. The Affiant goes on to explain the foreign relationships in the hardware used by
Dominion Voting Systems and its subsidiary Sequoia and explains specifically the port that
25

42

Case 2:20-cv-01771-PP Filed 12/01/20 Page 25 of 52 Document 1

Wisconsin uses, which is called Edge Gateway and that is a part of Akamai Technologies based in
Germany:
“Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES
based out of GERMANY. Using AKAMAI Technologies is allowing .gov sites to
obfuscate and mask their systems by way of HURRICANE ELECTRIC (he.net)”
77. This Declarant further explains the foundations of her opinion and then addresses the
concerns of foreign interference in our elections through hardware components from companies
based in foreign countries with adverse interests.
The concern is the HARDWARE and the NON – ACCREDITED VSTLs as by
their own admittance use COTS. The purpose of VSTL’s being accredited and their
importance is ensuring that there is no foreign interference / bad actors accessing
the tally data via backdoors in equipment software. The core software used by ALL
SCYTL related Election Machine/Software manufacturers ensures “anonymity”.
Algorithms within the area of this “shuffling” to maintain anonymity allows
for setting values to achieve a desired goal under the guise of “encryption” in
the trap-door…
(See Id. at ¶32).
78. This Declarant goes on to explain the foreign relationships in the hardware used by
Dominion Voting Systems and its subsidiary Sequoia and specifically the port that Wisconsin uses:
“Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES
based out of GERMANY. Using AKAMAI Technologies is allowing .gov sites to
obfuscate and mask their systems by way of HURRICANE ELECTRIC (he.net)
Kicking it to anonymous (AKAMAI Technologies) offshore servers.
Wisconsin Port.
China is not the only nation involved in COTS provided to election machines or the
networking but so is Germany via a LAOS founded Chinese linked cloud service
company that works with SCYTL named Akamai Technologies that have offices
in China and are linked to the server [for] Dominion Software.
(See Id. at par. 21).
79. The Affiant explains the use of an algorithm and how it presents throughout the statement,
but specifically concludes that,
26

43

Case 2:20-cv-01771-PP Filed 12/01/20 Page 26 of 52 Document 1

The “Digital Fix” observed with an increased spike in VOTES for Joe Biden
can be determined as evidence of a pivot. Normally it would be assumed that the
algorithm had a Complete Pivot. Wilkinson’s demonstrated the guarantee as:

Such a conjecture allows the growth factor the ability to be upper bound by values
closer to n. Therefore, complete pivoting can’t be observed because there would be
too many floating points. Nor can partial as the partial pivoting would overwhelm
after the “injection” of votes. Therefore, external factors were used which is evident
from the “DIGITAL FIX.” (See Id. at pars. 67-69)
“The algorithm looks to have been set to give Joe Biden a 52% win even with an
initial 50K+ vote block allocation was provided initially as tallying began (as in
case of Arizona too). In the am of November 4, 2020 the algorithm stopped
working, therefore another “block allocation” to remedy the failure of the
algorithm. This was done manually as ALL the SYSTEMS shut down
NATIONWIDE to avoid detection.”
(See Id. at par. 73)
2. Background of Dominion Connections to Smartmatic and Hostile
Foreign Governments.
80. An expert analysis by Russ Ramsland agrees with the data reflecting the use of an
algorithm that causes the spike in the data feed, which is shown to be an injection of votes to
change the outcome, because natural reporting does not appear in such a way.
81. And Russ Ramsland can support that further by documenting the data feed that came from
Dominion Voting Systems to Scytl -- and was reported with decimal points, which is contrary to
one vote as one ballot: “The fact that we observed raw vote data coming directly that includes
decimal places establishes selection by an algorithm, and not individual voter’s choice.
Otherwise, votes would be solely represented as whole numbers (votes cannot possibly be
added up and have decimal places reported).”
82. The report concludes that “Based on the foregoing, I believe these statistical anomalies
and impossibilities compels the conclusion to a reasonable degree of professional certainty that the
27

44

Case 2:20-cv-01771-PP Filed 12/01/20 Page 27 of 52 Document 1

vote count in Wisconsin, in particular for candidates for President contain at least 119,430 (Para.
13) up to 384,085 (Para. 15) illegal votes that must be disregarded. In my opinion, it is not possible
at this time to determine the true results of the Wisconsin vote for President of the United States.”
The History of Dominion Voting Systems
83. Plaintiffs can also show Smartmatic’s incorporation and inventors who have
backgrounds evidencing their foreign connections, including Serbia, specifically its
identified inventors:
Applicant: SMARTMATIC, CORP.
Inventors: Lino Iglesias, Roger Pinate, Antonio Mugica, Paul Babic, Jeffrey
Naveda, Dany Farina, Rodrigo Meneses, Salvador Ponticelli, Gisela
Goncalves, Yrem Caruso6
84. Another Affiant witness testifies that in Venezuela, she was in official position
related to elections and witnessed manipulations of petitions to prevent a removal of
President Chavez and because she protested, she was summarily dismissed. She explains
the vulnerabilities of the electronic voting system and Smartmatica to such manipulations.
(See Ex. 17, Cardozo Aff. ¶8).
3. US Government Warnings Regarding Hacking by Hostile Foreign
Governments.
85. In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY
ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
actor targeting U.S. state websites to include election websites. CISA and the FBI
See Patents Assigned to Smartmatic Corp., available at:
https://patents.justia.com/assignee/smartmatic-corp
6

28

45

Case 2:20-cv-01771-PP Filed 12/01/20 Page 28 of 52 Document 1

assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related
disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election.
(See Ex. 18, CISA and FBI Joint Cyber Security Advisory of October 30, 2020)
D. Additional Independent Findings of Dominion Flaws.
86. Further supportive of this pattern of incidents, reflecting an absence of mistake, Plaintiffs
have since learned that the “glitches” in the Dominion system, that have the uniform effect of
hurting Trump and helping Biden, have been widely reported in the press and confirmed by the
analysis of independent experts.
1. Central Operator Can Remove, Discard or Manipulate Votes.
87. Mr. Watkins further explains that the central operator can remove or discard batches
of votes. “After all of the ballots loaded into the scanner’s feed tray have been through the scanner,
the “ImageCast Central” operator will remove the ballots from the tray then have the option to
either “Accept Batch” or “Discard Batch” on the scanning menu …. “ (Ex. 106, Watkins aff. ¶11).
¶8.
88. Mr. Watkins further testifies that the user manual makes clear that the system allows for
threshold settings to be set to find all ballots get marked as “problem ballots” for discretionary
determinations on where the vote goes stating:
9. During the ballot scanning process, the “ImageCast Central” software will detect
how much of a percent coverage of the oval was filled in by the voter. The
Dominion customer determines the thresholds of which the oval needs to be
covered by a mark in order to qualify as a valid vote. If a ballot has a marginal mark
which did not meet the specific thresholds set by the customer, then the ballot is
considered a “problem ballot” and may be set aside into a folder named
“NotCastImages”.

29

46

Case 2:20-cv-01771-PP Filed 12/01/20 Page 29 of 52 Document 1

10. Through creatively tweaking the oval coverage threshold settings, and
advanced settings on the ImageCase Central scanners, it may be possible to set
thresholds in such a way that a non-trivial amount of ballots are marked “problem
ballots” and sent to the “NotCastImages” folder.
11. The administrator of the ImageCast Central work station may view all images
of scanned ballots which were deemed “problem ballots” by simply navigating
via the standard “Windows File Explorer” to the folder named “NotCastImages”
which holds ballot scans of “problem ballots”. It may be possible for an
administrator of the “ImageCast Central” workstation to view and delete any
individual ballot scans from the “NotCastImages” folder by simply using the
standard Windows delete and recycle bin functions provided by the Windows 10
Pro operating system. Id. ¶¶ 9-11.
2. Dominion – By Design – Violates Federal Election & Voting Record
Retention Requirements.
89. The Dominion System put in place by its own design violates the intent of Federal law
on the requirement to preserve and retain records – which clearly requires preservation of all
records requisite to voting in such an election.
§ 20701. Retention and preservation of records and papers by officers of
elections; deposit with custodian; penalty for violation
Every officer of election shall retain and preserve, for a period of twentytwo months from the date of any general, special, or primary election of
which candidates for the office of President, Vice President, presidential
elector, Member of the Senate, Member of the House of Representatives, or
Resident Commissioner from the Commonwealth of Puerto Rico are voted
for, all records and papers which come into his possession relating to
any application, registration, payment of poll tax, or other act requisite
to voting in such election, except that, when required by law, such records
and papers may be delivered to another officer of election and except that,
if a State or the Commonwealth of Puerto Rico designates a custodian to
retain and preserve these records and papers at a specified place, then such
records and papers may be deposited with such custodian, and the duty to
retain and preserve any record or paper so deposited shall devolve upon
such custodian. Any officer of election or custodian who willfully fails to
comply with this section shall be fined not more than $1,000 or imprisoned
not more than one year, or both.
See 52 USC § 20701.

30

47

Case 2:20-cv-01771-PP Filed 12/01/20 Page 30 of 52 Document 1

3. Dominion Vulnerabilities to Hacking.
90. Plaintiffs have since learned that the “glitches” in the Dominion system -- that
have the uniform effect of hurting Trump and helping Biden -- have been widely reported
in the press and confirmed by the analysis of independent experts, a partial summary of
which is included below.
(1) Users on the ground have full admin privileges to machines and
software. The Dominion system is designed to facilitate vulnerability
and allow a select few to determine which votes will be counted in any
election. Workers were responsible for moving ballot data from polling
place to the collector’s office and inputting it into the correct folder. Any
anomaly, such as pen drips or bleeds, is not counted and is handed over
to a poll worker to analyze and decide if it should count. This creates
massive opportunity for improper vote adjudication. (Ex. 106 Watkins
aff. ¶¶8 & 11).
(2) Affiant witness (name redacted for security reasons), in his sworn
testimony explains he was selected for the national security guard detail
of the President of Venezuela, and that he witnessed the creation of
Smartmatic for the purpose of election vote manipulation:
I was witness to the creation and operation of a sophisticated electronic
voting system that permitted the leaders of the Venezuelan government
to manipulate the tabulation of votes for national and local elections and
select the winner of those elections in order to gain and maintain their
power. Importantly, I was a direct witness to the creation and operation
of an electronic voting system in a conspiracy between a company
known as Smartmatic and the leaders of conspiracy with the Venezuelan
government. This conspiracy specifically involved President Hugo
Chavez Frias, the person in charge of the National Electoral Council
named Jorge Rodriguez, and principals, representatives, and personnel
from Smartmatic which included … The purpose of this conspiracy was
to create and operate a voting system that could change the votes in
elections from votes against persons running the Venezuelan
government to votes in their favor in order to maintain control of the
government. (Id. ¶¶6, 9, 10).
91. Specific vulnerabilities of the systems in question that have been well documented
or reported include:
A. Barcodes can override the voters’ vote: As one University of California,
Berkeley study shows, “In all three of these machines [including
31

48

Case 2:20-cv-01771-PP Filed 12/01/20 Page 31 of 52 Document 1

Dominion Voting Systems] the ballot marking printer is in the same
paper path as the mechanism to deposit marked ballots into an attached
ballot box. This opens up a very serious security vulnerability: the
voting machine can make the paper ballot (to add votes or spoil alreadycase votes) after the last time the voter sees the paper, and then deposit
that marked ballot into the ballot box without the possibility of
detection.” (See Ex. 2, Appel Study).
B. Voting machines were able to be connected to the internet by way of
laptops that were obviously internet accessible. If one laptop was
connected to the internet, the entire precinct was compromised.
C. October 6, 2006 – Congresswoman Carolyn Maloney calls on
Secretary of Treasury Henry Paulson to conduct an investigation
into Smartmatic based on its foreign ownership and ties to
Venezuela. (See Ex. 15). Congresswoman Maloney wrote that “It is
undisputed that Smartmatic is foreign owned and it has acquired Sequoia
… Smartmatic now acknowledged that Antonio Mugica, a Venezuelan
businessman has a controlling interest in Smartmatica, but the company
has not revealed who all other Smartmatic owners are. Id.
D. Dominion “got into trouble” with several subsidiaries it used over
alleged cases of fraud. One subsidiary is Smartmatic, a company “that
has played a significant role in the U.S. market over the last decade.”7
Dominion entered into a 2009 contract with Smartmatic and provided
Smartmatic with the PCOS machines (optical scanners) that were used
in the 2010 Philippine election, the biggest automated election run by a
private company. The automation of that first election in the Philippines
was hailed by the international community and by the critics of the
automation. The results transmission reached 90% of votes four hours
after polls closed and Filipinos knew for the first time who would be
their new president on Election Day. In keeping with local Election law
requirements, Smartmatic and Dominion were required to provide the
source code of the voting machines prior to elections so that it could be
independently verified. Id.
E. Litigation over Smartmatic “glitches” alleges they impacted the 2010
and 2013 mid-term elections in the Philippines, raising questions of
cheating and fraud. An independent review of the source codes used in
the machines found multiple problems, which concluded, “The software
inventory provided by Smartmatic is inadequate, … which brings into

7

Voting Technology Companies in the U.S. – Their Histories and Present Contributions,
Access Wire, (Aug. 10, 2017), available at: https://www.accesswire.com/471912/VotingTechnology-Companies-in-the-US--Their-Histories.
32

49

Case 2:20-cv-01771-PP Filed 12/01/20 Page 32 of 52 Document 1

question the software credibility.”8
F. Dominion acquired Sequoia Voting Systems as well as Premier Election
Solutions (formerly part of Diebold, which sold Premier to ES&S in
2009, until antitrust issues forced ES&S to sell Premier, which then was
acquired by Dominion). This map illustrates 2016 voting machine
data—meaning, these data do not reflect geographic aggregation at the
time of acquisition, but rather the machines that retain the Sequoia or
Premier/Diebold brand that now fall under Dominion’s market share.
Penn Wharton Study at 16.
G. In late December of 2019, three Democrat Senators, Warren, Klobuchar,
Wyden and House Member Mark Pocan wrote about their
‘particularized concerns that secretive & “trouble -plagued companies”‘
“have long skimped on security in favor of convenience,” in the context
of how they described the voting machine systems that three large
vendors – Election Systems & Software, Dominion Voting Systems, &
Hart InterCivic – collectively provide voting machines & software that
facilitate voting for over 90% of all eligible voters in the U.S.” (See Ex.
16).
H. Senator Ron Wyden (D-Oregon) said the findings [insecurity of voting
systems] are “yet another damning indictment of the profiteering
election vendors, who care more about the bottom line than protecting
our democracy.” It’s also an indictment, he said, “of the notion that
important cybersecurity decisions should be left entirely to county
election offices, many of whom do not employ a single cybersecurity
specialist.”9
92. The House of Representatives passed H.R. 2722 in an attempt to address these
very risks on June 27, 2019:
This bill addresses election security through grant programs and
requirements for voting systems and paper ballots.
The bill establishes requirements for voting systems, including that
systems (1) use individual, durable, voter-verified paper ballots; (2) make
8

Smartmatic-TIM Running Out of Time to Fix Glitches, ABS-CBN News (May 4, 2010),
available at: https://news.abs-cbn.com/nation/05/04/10/smartmatic-tim-running-out-time-fixglitches.
9

Kim Zetter, Exclusive: Critical U.S. Election Systems Have Been Left Exposed Online Despite
Official Denials, VICE (Aug. 8, 2019) (“VICE Election Article”), available at:
https://www.vice.com/en/article/3kxzk9/exclusive-critical-us-election-systems have-been-leftexposed-online-despite-official-denials.
33

50

Case 2:20-cv-01771-PP Filed 12/01/20 Page 33 of 52 Document 1

a voter’s marked ballot available for inspection and verification by the
voter before the vote is cast; (3) ensure that individuals with disabilities
are given an equivalent opportunity to vote, including with privacy and
independence, in a manner that produces a voter-verified paper ballot; (4)
be manufactured in the United States; and (5) meet specified cybersecurity
requirements, including the prohibition of the connection of a voting
system to the internet.
See H.R. 2722.
E. Because Dominion Senior Management Has Publicly Expressed
Hostility to Trump and Opposition to His Election, Dominion Is Not
Entitled to Any Presumption of Fairness, Objectivity or
Impartiality, and Should Instead Be Treated as a Hostile Partisan
Political Actor.
93. Dr. Eric Coomer is listed as the co-inventor for several patents on ballot
adjudication and voting machine-related technology, all of which were assigned to
Dominion.10 He joined Dominion in 2010, and most recently served as Voting Systems
Officer of Strategy and Director of Security for Dominion. Dr. Coomer first joined
Sequoia Voting Systems in 2005 as Chief Software Architect and became Vice President
of Engineering before Dominion Voting Systems acquired Sequoia.

Dr. Coomer’s

patented ballot adjudication technology into Dominion voting machines sold throughout

10

See “Patents by Inventor Eric Coomer,” available at:
https://patents.justia.com/inventor/eric-coomer. This page lists the following patents
issued to Dr. Coomer and his co-inventors: (1) U.S. Patent No. 9,202,113, Ballot
Adjudication in Voting Systems Utilizing Ballot Images (issued Dec. 1, 2015); (2) U.S.
Patent No. 8,913,787, Ballot Adjudication in Voting Systems Utilizing Ballot Images
(issued Dec. 16, 2014); (3) U.S. Patent No. 8,910,865, Ballot Level Security Features for
Optical Scan Voting Machine Capable of Ballot Image Processing, Secure Ballot
Printing, and Ballot Layout Authentication and Verification (issued Dec. 16, 2014); (4)
U.S. Patent No. 8,876,002, Systems for Configuring Voting Machines, Docking Device
for Voting Machines, Warehouse Support and Asset Tracking of Voting Machines (issued
Nov. 4, 2014); (5) U.S. Patent No. 8,864,026, Ballot Image Processing System and
Method for Voting Machines (issued Oct. 21, 2014); (6) U.S. Patent No. 8,714,450,
Systems and Methods for Transactional Ballot Processing, and Ballot Auditing (issued
May 6, 2014), available at: https://patents.justia.com/inventor/eric-coomer.
34

51

Case 2:20-cv-01771-PP Filed 12/01/20 Page 34 of 52 Document 1

the United States, including those used in Wisconsin. (See attached hereto Exh 6, Jo
Oltmann Aff.).
94. In 2016, Dr. Coomer admitted to the State of Illinois that Dominion Voting
machines can be manipulated remotely.11 He has also publicly posted videos explaining
how Dominion voting machines can be remotely manipulated. See Id.12
95. Dr. Coomer has emerged as Dominion’s principal defender, both in litigation
alleging that Dominion rigged elections in Georgia and in the media. An examination of
his previous public statements has revealed that Dr. Coomer is highly partisan and even
more anti-Trump, precisely the opposite of what would expect from the management of
a company charged with fairly and impartially counting votes (which is presumably why
he tried to scrub his social media history). (See Id.)
96. Unfortunately for Dr. Coomer, however, a number of these posts have been
captured for perpetuity. Below are quotes from some of his greatest President Trump and
Trump voter hating hits to show proof of motive and opportunity. (See Id).
If you are planning to vote for that autocratic, narcissistic, fascist ass-hat
blowhard and his Christian jihadist VP pic, UNFRIEND ME NOW! No,
I’m not joking. … Only an absolute F[**]KING IDIOT could ever vote for
that wind-bag fuck-tard FASCIST RACIST F[**]K! … I don’t give a damn
if you’re friend, family, or random acquaintance, pull the lever, mark an
oval, touch a screen for that carnival barker … UNFRIEND ME NOW! I
have no desire whatsoever to ever interact with you. You are beyond hope,
beyond reason. You are controlled by fear, reaction and bullsh[*]t. Get
your shit together. F[**]K YOU! Seriously, this f[**]king ass-clown stands
11

Jose Hermosa, Electoral Fraud: Dominion’s Vice President Warned in 2016 That VoteCounting Systems Are Manipulable, The BL (Nov. 13, 2020), available at: https://thebl.com/usnews/electoral-fraud-dominions-vice-president-warned-in-2016-that-vote-counting-systems-aremanipulable.html.
12

See, e.g., “Eric Coomer Explains How to Alter Votes in the Dominion Voting System” (Nov.
24, 2020) (excerpt of presentation delivered in Chicago in 2017), available at:
https://www.youtube.com/watch?v=UtB3tLaXLJE.
35

52

Case 2:20-cv-01771-PP Filed 12/01/20 Page 35 of 52 Document 1

against everything that makes this country awesome! You want in on that?
You [Trump voters] deserve nothing but contempt. Id. (July 21, 2016
Facebook post).13
97. In a rare moment of perhaps unintentional honesty, Dr. Coomer anticipates this
Complaint and many others, by slandering those seeking to hold election riggers like
Dominion to account and to prevent the United States’ descent into Venezuelan levels of
voting fraud and corruption out of which Dominion was born:
Excerpts in stunning Trump-supporter logic, “I know there is a lot of voter
fraud. I don’t know who is doing it, or how much is happening, but I know
it is going on a lot.” This beautiful statement was followed by, “It happens
in third world countries, this the US, we can’t let it happen here.” Id.
(October 29, 2016 Facebook post); (See also Exh. 6)
1. Dr. Coomer, who invented the technology for Dominion’s voting fraud and has
publicly explained how it can be used to alter votes, seems to be extremely hostile to those
who would attempt to stop it and uphold the integrity of elections that underpins the
legitimacy of the United States government:
And in other news… There be some serious fuckery going on right here
fueled by our Cheeto-in-Chief stoking lie after lie on the flames of [Kris]
Kobach… [Linking Washington Post article discussing the Presidential
Advisory Commission on Election Integrity, of which former Kansas
Secretary of State Kris Kobach was a member, entitled, “The voting
commission is a fraud itself. Shut it down.”] Id. (September 14, 2017
Facebook post.] (Id.)
98. Dr. Coomer also keeps good company, supporting and reposting ANTIFA
statements slandering President Trump as a “fascist” and by extension his supporters,
voters and the United States military (which he claims, without evidence, Trump will
make into a “fascist tool”). Id. (June 2, 2020 Facebook post). Lest someone claims that these

13

In this and other quotations from Dr. Coomer’s social media, Plaintiffs have redacted certain
profane terms.
36

53

Case 2:20-cv-01771-PP Filed 12/01/20 Page 36 of 52 Document 1

are “isolated statements” “taken out of context”, Dr. Coomer has affirmed that he shares
ANTIFA’s taste in music and hatred of the United States of America, id. (May 31, 2020 Facebook
post linking “F[**]k the USA” by the exploited), and the police. Id. (separate May 31, 2020
Facebook posts linking N.W.A. “F[**]k the Police” and a post promoting phrase “Dead Cops”).
Id. at 4-5.
99. Affiant and journalist Joseph Oltmann researched ANTIFA in Colorado. Id. at
1. “On or about the week of September 27, 2020,” he attended an Antifa meeting which
appeared to be between Antifa members in Colorado Springs and Denver Colorado,”
where Dr. Coomer was present. In response to a question as to what Antifa would do “if
Trump wins this … election?”, Dr. Coomer responded “Don’t worry about the election.
Trump is not going to win. I made f[**]king sure of that … Hahaha.” Id. at 2.
100. By putting an anti-Trump zealot like Dr. Coomer in charge of election “Security,” and
using his technology for what should be impartial “ballot adjudication,” Dominion has given the
fox the keys to the hen house and has forfeited any presumption of objectivity, fairness, or even
propriety. It appears that Dominion does not care about even an appearance of impropriety, as its
most important officer has his fingerprints all over a highly partisan, vindictive, and personal
vendetta against the Republican nominee both in 2016 and 2020, President Donald Trump. Dr.
Coomer’s highly partisan anti-Trump rages show clear motive on the part of Dominion to rig the
election in favor of Biden, and may well explain why for each of the so-called “glitches”
uncovered, it is always Biden receiving the most votes on the favorable end of such a “glitch.”
(Id.)
101. In sum, as set forth above, for a host of independent reasons, the Wisconsin
election results concluding that Joe Biden received 20,608 more votes that President
37

54

Case 2:20-cv-01771-PP Filed 12/01/20 Page 37 of 52 Document 1

Donald Trump must be set aside.
COUNT I
Defendants Violated the Elections and Electors Clauses and 42 U.S.C. § 1983.
102. Plaintiffs reallege all preceding paragraphs as if fully set forth herein.
103. The Electors Clause states that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors” for President. U.S. Const. art. II, §1, cl. 2
(emphasis added). Likewise, the Elections Clause of the U.S. Constitution states that “[t]he Times,
Places, and Manner of holding Elections for Senators and Representatives, shall be prescribed in
each State by the Legislature thereof.” U.S. Const. art. I, § 4, cl. 1 (emphasis added).
104. The Legislature is “‘the representative body which ma[kes] the laws of the
people.’” Smiley v. Holm, 285 U.S. 355, 365 (1932). Regulations of congressional and
presidential elections, thus, “must be in accordance with the method which the state has
prescribed for legislative enactments.” Id. at 367; see also Ariz. State Legislature v. Ariz.
Indep. Redistricting Comm’n, 135 S. Ct. 2652, 2668 (2015).
105. Defendants are not part of the Wisconsin Legislature and cannot exercise
legislative power. Because the United States Constitution reserves for the Wisconsin
Legislature the power to set the time, place, and manner of holding elections for the
President and Congress, county boards of elections and state executive officers have no
authority to unilaterally exercise that power, much less to hold them in ways that conflict
with existing legislation.
106. Section I details three separate instances where Defendants violated the
Wisconsin Election Code. First, the WEC May 23, 2020 “guidance”, see Ex. 16, on the
treatment of “indefinitely confined” voters, who are exempt from Wisconsin’s photo ID
38

55

Case 2:20-cv-01771-PP Filed 12/01/20 Page 38 of 52 Document 1

requirement for absentee ballot application, that directly contravened the express
requirement in Wisconsin Election Code that clerks “shall” remove an allegedly
“indefinitely confined” voter if the clerk has “reliable information” that that voter is not,
or is no longer, “indefinitely confined.” Second, the WEC’s October 18, 2016, see Ex.
18, directed clerks to violate the express requirements of Wisconsin Statutes § 6.87(6)(d),
which states “[i]f a certificate is missing the address of a witness the ballot may not be
counted,” when it directed clerks to fill in missing information on absentee ballot
envelopes. Third, WEC and Wisconsin election officials violated Wisconsin Election
Code, or acted ultra vires, insofar as they filled in missing witness or voter information
on absentee ballots and permitted voters to cure ballots without statutory authorization.
Section II provides expert witness testimony quantifying the number of illegal or
ineligible ballots that were counted, and lawful ballots that were not, as a result of these
and Defendants’ other violations.
107. A report from Dr. William Briggs, shows that there were approximately 29,594 absentee
ballots listed as “unreturned” by voters that either never requested them, or that requested and
returned their ballots.
108. Evidence compiled by Matt Braynard using the National Change of Address (“NCOA”)
Database shows that 6,207 Wisconsin voters in the 2020 General Election moved out-of-state prior
to voting, and therefore were ineligible. Mr. Braynard also identified 765 Wisconsin voters who
subsequently registered to vote in another state and were therefore ineligible to vote in the 2020
General Election. The merged number is 6,966 ineligible voters whose votes must be removed
from the total for the 2020 General Election.
109. Plaintiffs have no adequate remedy at law and will suffer serious and irreparable
39

56

Case 2:20-cv-01771-PP Filed 12/01/20 Page 39 of 52 Document 1

harm unless the injunctive relief requested herein is granted. Defendants have acted and,
unless enjoined, will act under color of state law to violate the Elections Clause.
110. Accordingly, the results for President in the November 3, 2020 election must be
set aside, the State of Wisconsin should be enjoined from transmitting the certified the
results thereof, and this Court should grant the other declaratory and injunctive relief
requested herein.
COUNT II
Governor Evers and Other Defendants Violated The Equal
Protection Clause of the Fourteenth Amendment U.S. Const.
Amend. XIV & 42 U.S.C. § 1983
Invalid Enactment of Regulations & Disparate Treatment of
Absentee vs. Mail-In Ballots
111. Plaintiffs refer to and incorporate by reference each of the prior paragraphs of this
Complaint as though the same were repeated at length herein.
112. The Fourteenth Amendment of the United States Constitution provides “nor shall any
state deprive any person of life, liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection of the laws. See also Bush v.
Gore, 531 U.S. 98, 104 (2000) (having once granted the right to vote on equal terms, the
State may not, by later arbitrary and disparate treatment, value one person’s vote over the
value of another’s). Harper v. Va. Bd. of Elections, 383 U.S. 663, 665 (1966) (“Once the
franchise is granted to the electorate, lines may not be drawn which are inconsistent with
the Equal Protection Clause of the Fourteenth Amendment.”). The Court has held that to
ensure equal protection, a problem inheres in the absence of specific standards to ensure
its equal application. Bush, 531 U.S. at 106 (“The formulation of uniform rules to
determine intent based on these recurring circumstances is practicable and, we conclude,
40

57

Case 2:20-cv-01771-PP Filed 12/01/20 Page 40 of 52 Document 1

necessary.”).
113. The equal enforcement of election laws is necessary to preserve our most basic
and fundamental rights. The requirement of equal protection is particularly stringently
enforced as to laws that affect the exercise of fundamental rights, including the right to
vote.
114. The disparate treatment of Wisconsin voters, in subjecting one class of voters to greater
burdens or scrutiny than another, violates Equal Protection guarantees because “the right of
suffrage can be denied by a debasement or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of the franchise.” Reynolds, 377 U.S. at 555.
Rice v. McAlister, 268 Ore. 125, 128, 519 P.2d 1263, 1265 (1975); Heitman v. Brown Grp., Inc.,
638 S.W.2d 316, 319, 1982 Mo. App. LEXIS 3159, at *4 (Mo. Ct. App. 1982); Prince v. Bear
River Mut. Ins. Co., 2002 UT 68, ¶ 41, 56 P.3d 524, 536-37 (Utah 2002).
115. In statewide and federal elections conducted in the State of Wisconsin, including
without limitation the November 3, 2020 General Election, all candidates, political
parties, and voters, including without limitation Plaintiffs, in having the election laws
enforced fairly and uniformly.
116. As set forth in Section I above, Defendants failed to comply with the requirements
of the Wisconsin Election Code and thereby diluted the lawful ballots of the Plaintiffs and
of other Wisconsin voters and electors in violation of the United States Constitution
guarantee of Equal Protection. Further, Defendants enacted regulations, or issued
guidance, that had the intent and effect of favoring one class of voters – Democratic
absentee voters – over Republican voters. Further, all of these invalidly enacted rules by
Defendant Wisconsin executive and administrative agencies, had the intent and effect of
41

58

Case 2:20-cv-01771-PP Filed 12/01/20 Page 41 of 52 Document 1

eliminating protections against voter fraud, and thereby enabled and facilitated the
counting of fraudulent, unlawful and ineligible votes, which were quantified in Section
II. Finally, Section III details the additional voting fraud and manipulation enabled by
the use Dominion voting machines, which had the intent and effect of favoring Biden and
Democratic voters and discriminating against Trump and Republican voters.
117. Defendants have acted and will continue to act under color of state law to violate
Plaintiffs’ right to be present and have actual observation and access to the electoral
process as secured by the Equal Protection Clause of the United States Constitution.
Defendants thus failed to conduct the general election in a uniform manner as required by
the Equal Protection Clause of the Fourteenth Amendment, the corollary provisions of the
Wisconsin Constitution, and the Wisconsin Election Code.
118. Plaintiffs seek declaratory and injunctive relief forbidding Defendants from
certifying a tally that includes any ballots that were not legally cast, or that were switched
from Trump to Biden through the unlawful use of Dominion Democracy Suite software
and devices.
119. The Briggs analysis identified two specific errors involving unreturned mail-in ballots
that are indicative of voter fraud, namely: “Error #1: those who were recorded as receiving
absentee ballots without requesting them;” and “Error #2: those who returned absentee ballots
but whose votes went missing (i.e., marked as unreturned).” Clearly the dilution of lawful votes
violates the Equal Protection clause; and the counting of unlawful votes violates the rights of
lawful Citizens.
120. In addition, Plaintiffs ask this Court to order that no ballot processed by a counting
board in the Wisconsin Counties can be included in the final vote tally unless a challenger
42

59

Case 2:20-cv-01771-PP Filed 12/01/20 Page 42 of 52 Document 1

was allowed to meaningfully observe the process and handling and counting of the ballot,
or that were unlawfully switched from Trump to Biden.
121. Plaintiffs have no adequate remedy at law and will suffer serious and irreparable
harm unless the declaratory and injunctive relief requested herein is granted. Indeed, the
setting aside of an election in which the people have chosen their representative is a
drastic remedy that should not be undertaken lightly, but instead should be reserved for
cases in which a person challenging an election has clearly established a violation of
election procedures and has demonstrated that the violation has placed the result of the
election in doubt. Wisconsin law allows elections to be contested through litigation, both
as a check on the integrity of the election process and as a means of ensuring the
fundamental right of citizens to vote and to have their votes counted accurately.
COUNT III
Fourteenth Amendment, Amend. XIV & 42 U.S.C. § 1983
Denial of Due Process On The Right to Vote
122. Plaintiffs refer to and incorporate by reference each of the prior paragraphs of
this Complaint as though the same were repeated at length herein.
123. The right of qualified citizens to vote in a state election involving federal
candidates is recognized as a fundamental right under the Fourteenth Amendment of the
United States Constitution. Harper, 383 U.S. at 665. See also Reynolds, 377 U.S. at 554
(The Fourteenth Amendment protects the “the right of all qualified citizens to vote, in
state as well as in federal elections.”). Indeed, ever since the Slaughter-House Cases, 83
U.S. 36 (1873), the United States Supreme Court has held that the Privileges or
Immunities Clause of the Fourteenth Amendment protects certain rights of federal
43

60

Case 2:20-cv-01771-PP Filed 12/01/20 Page 43 of 52 Document 1

citizenship from state interference, including the right of citizens to directly elect
members of Congress. See Twining v. New Jersey, 211 U.S. 78, 97 (1908) (citing Ex
parte Yarbrough, 110 U.S. 651, 663-64 (1884)). See also Oregon v. Mitchell, 400 U.S.
112, 148-49 (1970) (Douglas, J., concurring) (collecting cases).
124. The fundamental right to vote protected by the Fourteenth Amendment is
cherished in our nation because it “is preservative of other basic civil and political rights.”
Reynolds, 377 U.S. at 562. Voters have a “right to cast a ballot in an election free from
the taint of intimidation and fraud,” Burson v. Freeman, 504 U.S. 191, 211 (1992), and
“[c]onfidence in the integrity of our electoral processes is essential to the functioning of
our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).
125. “Obviously included within the right to [vote], secured by the Constitution, is the
right of qualified voters within a state to cast their ballots and have them counted” if they
are validly cast. United States v. Classic, 313 U.S. 299, 315 (1941). “[T]he right to have
the vote counted” means counted “at full value without dilution or discount.” Reynolds,
377 U.S. at 555, n.29 (quoting South v. Peters, 339 U.S. 276, 279 (1950) (Douglas, J.,
dissenting)).
126. “Every voter in a federal . . . election, whether he votes for a candidate with little
chance of winning or for one with little chance of losing, has a right under the Constitution
to have his vote fairly counted, without its being distorted by fraudulently cast votes.”
Anderson v. United States, 417 U.S. 211, 227 (1974); see also Baker v. Carr, 369 U.S.
186, 208 (1962). Invalid or fraudulent votes “debase[]” and “dilute” the weight of each
validly cast vote. See Anderson, 417 U.S. at 227.
127. The right to vote includes not just the right to cast a ballot, but also the right to have it
44

61

Case 2:20-cv-01771-PP Filed 12/01/20 Page 44 of 52 Document 1

fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or diluted by
a fraudulent or illegal vote, including without limitation when a single person votes multiple times.
The Supreme Court of the United States has made this clear in case after case. See, e.g., Gray v.
Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the diluting effect of illegal
ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196 (2008) (plurality op. of
Stevens, J.) (“There is no question about the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377 U.S. 533, 554-55 &
n.29 (1964).
128. The right to an honest [count] is a right possessed by each voting elector, and to
the extent that the importance of his vote is nullified, wholly or in part, he has been injured
in the free exercise of a right or privilege secured to him by the laws and Constitution of
the United States.” Anderson, 417 U.S. at 226 (quoting Prichard v. United States, 181
F.2d 326, 331 (6th Cir.), aff’d due to absence of quorum, 339 U.S. 974 (1950)).
129. Practices that promote the casting of illegal or unreliable ballots or fail to contain
basic minimum guarantees against such conduct, can violate the Fourteenth Amendment
by leading to the dilution of validly cast ballots. See Reynolds, 377 U.S. at 555 (“[T]he
right of suffrage can be denied by a debasement or dilution of the weight of a citizen’s
vote just as effectively as by wholly prohibiting the free exercise of the franchise.”).
130. Section I details the Defendants violations of the Wisconsin Election Code.
Section II provides estimates of the number of fraudulent, illegal or ineligible votes
counted, and demonstrates that this number is many times larger than Biden’s margin of
victory.
131. Plaintiffs seek declaratory and injunctive relief enjoining Defendants from
45

62

Case 2:20-cv-01771-PP Filed 12/01/20 Page 45 of 52 Document 1

certifying the results of the General Election, or in the alternative, conduct a recount or
recanvas in which they allow a reasonable number of challengers to meaningfully observe
the conduct of the Wisconsin Board of State Canvassers and the Wisconsin county Boards
of Canvassers and that these canvassing boards exercise their duty and authority under
Wisconsin law, which forbids certifying a tally that includes any ballots that were not
legally cast, or that were switched from Trump to Biden through the unlawful use of
Dominion Democracy Suite software and devices.
COUNT IV
Wide-Spread Ballot Fraud
132. Plaintiffs reallege all preceding paragraphs as if fully set forth herein.
133. The scheme of civil fraud can be shown with the pattern of conduct that includes motive
and opportunity, as exhibited by the high level official at Dominion Voting Systems, Eric Coomer,
and his visceral and public rage against the current U.S. President.
134. Opportunity appears with the secretive nature of the voting source code, and the feed of
votes that make clear that an algorithm is applied, that reports in decimal points despite the law
requiring one vote for one ballot.
135. The results of the analysis and the pattern seen in the included graph strongly suggest a
systemic, system-wide algorithm was enacted by an outside agent, causing the results of
Wisconsin’s vote tallies to be inflated by somewhere between 3 and 5.6 percentage points.
Statistical estimating yields that in Wisconsin, the best estimate of the number of impacted votes
is 181,440. Id.
136. The Reports cited above show a total amount of illegal votes identified that amount to
318,012 or over 15 times the margin by which candidate Biden leads President Trump in the state
46

63

Case 2:20-cv-01771-PP Filed 12/01/20 Page 46 of 52 Document 1

of Wisconsin.
137. The right to vote includes not just the right to cast a ballot, but also the right to have it
fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or diluted by
a fraudulent or illegal vote, including without limitation when a single person votes multiple times.
The Supreme Court of the United States has made this clear in case after case. See, e.g., Gray v.
Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the diluting effect of illegal
ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196 (2008) (plurality op. of
Stevens, J.) (“There is no question about the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377 U.S. 533, 554-55 &
n.29 (1964).
138. Plaintiffs have no adequate remedy at law. Plaintiffs contest the results of Wisconsin’s
2020 General Election because it is fundamentally corrupted by fraud. Defendants intentionally
violated multiple provisions of the Wisconsin Election Code to elect Biden and other Democratic
candidates and defeat President Trump and other Republican candidates.
PRAYER FOR RELIEF
139. Accordingly, Plaintiffs seek an emergency order instructing Defendants to de-certify the
results of the General Election for the Office of President.
140. Alternatively, Plaintiffs seek an order instructing the Defendants to certify the results of
the General Election for Office of the President in favor of President Donald Trump.
141. In the alternative, Plaintiffs seek an emergency order prohibiting Defendants from
including in any certified results from the General Election the tabulation of absentee and mailing
ballots which do not comply with the Wisconsin Election Code, including, without limitation, the
tabulation of absentee and mail-in ballots Trump Campaign’s watchers were prevented from
47

64

Case 2:20-cv-01771-PP Filed 12/01/20 Page 47 of 52 Document 1

observing or based on the tabulation of invalidly cast absentee and mail-in ballots which (i) lack a
secrecy envelope, or contain on that envelope any text, mark, or symbol which reveals the elector’s
identity, political affiliation, or candidate preference, (ii) do not include on the outside envelope a
completed declaration that is dated and signed by the elector, (iii) are delivered in-person by third
parties for non-disabled voters, or (iv) any of the other Wisconsin Election Code violations set
forth in Section II of this Complaint.
142. Order production of all registration data, ballot applications, ballots, envelopes, etc.
required to be maintained by law. When we consider the harm of these uncounted votes, and
ballots not ordered by the voters themselves, and the potential that many of these unordered ballots
may in fact have been improperly voted and also prevented proper voting at the polls, the mail
ballot system has clearly failed in the state of Wisconsin and did so on a large scale and widespread
basis. The size of the voting failures, whether accidental or intentional, are multiples larger than
the margin in the state. For these reasons, Wisconsin cannot reasonably rely on the results of the
mail vote. Relief sought is the elimination of the mail ballots from counting in the 2020 election.
Alternatively, the electors for the State of Wisconsin should be disqualified from counting toward
the 2020 election. Alternatively, the electors of the State of Wisconsin should be directed to vote
for President Donald Trump.
143. For these reasons, Plaintiffs ask this Court to enter a judgment in their favor and provide
the following emergency relief:
1.

An order directing Governor Evers and the Wisconsin Elections Commission
to de-certify the election results;

48

65

Case 2:20-cv-01771-PP Filed 12/01/20 Page 48 of 52 Document 1

2.

An order enjoining Governor Evers from transmitting the currently certified
election results the Electoral College;

3.

An order requiring Governor Evers to transmit certified election results that
state that President Donald Trump is the winner of the election;

4.

An immediate emergency order to seize and impound all servers, software,
voting machines, tabulators, printers, portable media, logs, ballot applications,
ballot return envelopes, ballot images, paper ballots, and all “election
materials” referenced in Wisconsin Statutes § 9.01(1)(b)11. related to the
November 3, 2020 Wisconsin election for forensic audit and inspection by the
Plaintiffs;

5.

An order that no votes received or tabulated by machines that were not certified
as required by federal and state law be counted;

6.

A declaratory judgment declaring that Wisconsin’s failed system of signature
verification violates the Electors and Elections Clause by working a de facto
abolition of the signature verification requirement;

7.

A declaratory judgment declaring that currently certified election results
violate the Due Process Clause, U.S. CONST. Amend. XIV;

8.

A declaratory judgment declaring that mail-in and absentee ballot fraud must
be remedied with a Full Manual Recount or statistically valid sampling that
properly verifies the signatures on absentee ballot envelopes and that

49

66

Case 2:20-cv-01771-PP Filed 12/01/20 Page 49 of 52 Document 1

invalidates the certified results if the recount or sampling analysis shows a
sufficient number of ineligible absentee ballots were counted;
9.

A declaratory judgment declaring absentee ballot fraud occurred in violation
of Constitutional rights, Election laws and under state law;

10. A permanent injunction prohibiting the Governor and Secretary of State from
transmitting the currently certified results to the Electoral College based on the
overwhelming evidence of election tampering;
11. Immediate production of 48 hours of security camera recording of all rooms
used in the voting process at the TCF Center for November 3, 2020 and
November 4, 2020.
12. Plaintiffs further request the Court grant such other relief as is just and proper,
including but not limited to, the costs of this action and their reasonable
attorney fees and expenses pursuant to 42 U.S.C. 1988.

50

67

Case 2:20-cv-01771-PP Filed 12/01/20 Page 50 of 52 Document 1

Respectfully submitted, this 1st day of December, 2020.
LEAD COUNSEL FOR PLAINTIFFS
/s Sidney Powell**
Sidney Powell PC
Texas Bar No. 16209700
(517) 763-7499
sidney@federalappeals.com
Of Counsel:
Julia Z. Haller (D.C. Bar No. 466921) **
Brandon Johnson (D.C. 491730) **
Emily P. Newman (Virginia Bar No. 84265) **
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
L. Lin Wood **
GA Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
Telephone: (404) 891-1402
Howard Kleinhendler **
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
** Applications for admission forthcoming

51

68

Case 2:20-cv-01771-PP Filed 12/01/20 Page 51 of 52 Document 1

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com

Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

52

69

Case 2:20-cv-01771-PP Filed 12/01/20 Page 52 of 52 Document 1

DECLARATION OF
I,

, hereby state the following:
1.

2.

I am an adult of sound mine. All statements in this declaration are based
on my personal knowledge and are true and correct.

3.

I am making this statement voluntarily and on my own initiative. I have
not been promised, nor do I expect to receive, anything in exchange for my
testimony and giving this statement. I have no expectation of any profit
or reward and understand that there are those who may seek to harm me
for what I say in this statement. I have not participated in any political
process in the United States, have not supported any candidate for office
in the United States, am not legally permitted to vote in the United
States, and have never attempted to vote in the United States.

4.

I want to alert the public and let the world know the truth about the
corruption, manipulation, and lies being committed by a conspiracy of
people and companies intent upon betraying the honest people of the
United States and their legally constituted institutions and fundamental
rights as citizens. This conspiracy began more than a decade ago in
Venezuela and has spread to countries all over the world. It is a conspiracy
to wrongfully gain and keep power and wealth. It involves political
leaders, powerful companies, and other persons whose purpose is to gain
and keep power by changing the free will of the people and subverting the
proper course of governing.

5.
Over the course of my career, I
specialized in the marines

6.

Due to my training in special operations and my extensive military and
academic formations, I was selected for the national security guard detail
of the President of Venezuela.

- Page 1 of 8

70

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 8 Document 1-1

71

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 8 Document 1-1

sophisticated electronic voting system that permitted the leaders of the
Venezuelan government to manipulate the tabulation of votes for national
and local elections and select the winner of those elections in order to gain
and maintain their power.
10. Importantly, I was a direct witness to the creation and operation of an
electronic voting system in a conspiracy between a company known as
Smartmatic and the leaders of conspiracy with the Venezuelan
government. This conspiracy specifically involved President Hugo Chavez
Frias, the person in charge of the National Electoral Council named Jorge
Rodriguez, and principals, representatives, and personnel from
Smartmatic which included
. The
purpose of this conspiracy was to create and operate a voting system that
could change the votes in elections from votes against persons running
the Venezuelan government to votes in their favor in order to maintain
control of the government.
11. In mid-February of 2009, there was a national referendum to change the
Constitution of Venezuela to end term limits for elected officials, including
the President of Venezuela. The referendum passed. This permitted Hugo
Chavez to be re-elected an unlimited number of times.
12. After passage of the referendum, President Chavez instructed me to make
arrangements for him to meet with Jorge Rodriguez, then President of the
National Electoral Council, and three executives from Smartmatic.
Among the three Smartmatic representatives were
President Chavez had multiple meetings with Rodriguez
and the Smartmatic team at which I was present. In the first of four
meetings, Jorge Rodriguez promoted the idea to create software that
would manipulate elections. Chavez was very excited and made it clear
that he would provide whatever Smartmatic needed. He wanted them
immediately to create a voting system which would ensure that any time
anything was going to be voted on the voting system would guarantee
results that Chavez wanted. Chavez offered Smartmatic many
inducements, including large sums of money, for Smartmatic to create or
modify the voting system so that it would guarantee Chavez would win
every election cycle. Smartmatic’s team agreed to create such a system
and did so.
13. I arranged and attended three more meetings between President Chavez
and the representatives from Smartmatic at which details of the new
- Page 3 of 8

72

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 8 Document 1-1

voting system were discussed and agreed upon. For each of these
meetings, I communicated directly with
on details of
where and when to meet, where the participants would be picked up and
delivered to the meetings, and what was to be accomplished. At these
meetings, the participants called their project the “Chavez revolution.”
From that point on, Chavez never lost any election. In fact, he was able
to ensure wins for himself, his party, Congress persons and mayors from
townships.
14. Smartmatic’s electoral technology was called “Sistema de Gestión
Electoral” (the “Electoral Management System”). Smartmatic was a
pioneer in this area of computing systems. Their system provided for
transmission of voting data over the internet to a computerized central
tabulating center. The voting machines themselves had a digital display,
fingerprint recognition feature to identify the voter, and printed out the
voter’s ballot. The voter’s thumbprint was linked to a computerized record
of that voter’s identity. Smartmatic created and operated the entire
system.
15. Chavez was most insistent that Smartmatic design the system in a way
that the system could change the vote of each voter without being
detected. He wanted the software itself to function in such a manner that
if the voter were to place their thumb print or fingerprint on a scanner,
then the thumbprint would be tied to a record of the voter’s name and
identity as having voted, but that voter would not tracked to the changed
vote. He made it clear that the system would have to be setup to not leave
any evidence of the changed vote for a specific voter and that there would
be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic
agreed to create such a system and produced the software and hardware
that accomplished that result for President Chavez.
16. After the Smartmatic Electoral Management System was put in place, I
closely observed several elections where the results were manipulated
using Smartmatic software. One such election was in December 2006
when Chavez was running against Rosales. Chavez won with a landslide
over Manuel Rosales - a margin of nearly 6 million votes for Chavez versus
3.7 million for Rosales.
17. On April 14, 2013, I witnessed another Venezuelan national election in
which the Smartmatic Electoral Management System was used to
manipulate and change the results for the person to succeed Hugo Chávez
- Page 4 of 8

73

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 8 Document 1-1

as President. In that election, Nicolás Maduro ran against Capriles
Radonsky.
Inside that location was a control room in which there were
multiple digital display screens – TV screens – for results of voting in each
state in Venezuela. The actual voting results were fed into that room and
onto the displays over an internet feed, which was connected to a
sophisticated computer system created by Smartmatic. People in that
room were able to see in “real time” whether the vote that came through
the electronic voting system was in their favor or against them. If one
looked at any particular screen, they could determine that the vote from
any specific area or as a national total was going against either candidate.
Persons controlling the vote tabulation computer had the ability to change
the reporting of votes by moving votes from one candidate to another by
using the Smartmatic software.
18. By two o'clock in the afternoon on that election day Capriles Radonsky
was ahead of Nicolás Maduro by two million votes. When Maduro and his
supporters realized the size of Radonsky’s lead they were worried that
they were in a crisis mode and would lose the election. The Smartmatic
machines used for voting in each state were connected to the internet and
reported their information over the internet to the Caracas control center
in real-time. So, the decision was made to reset the entire system.
Maduro’s and his supporters ordered the network controllers to take the
internet itself offline in practically all parts in Venezuela and to change
the results.
19. It took the voting system operators approximately two hours to make the
adjustments in the vote from Radonsky to Maduro. Then, when they
turned the internet back on and the on-line reporting was up and running
again, they checked each screen state by state to be certain where they
could see that each vote was changed in favor of Nicholas Maduro. At that
moment the Smartmatic system changed votes that were for Capriles
Radonsky to Maduro. By the time the system operators finish, they had
achieved a convincing, but narrow victory of 200,000 votes for Maduro.
20. After Smartmatic created the voting system President Chavez wanted, he
exported the software and system all over Latin America. It was sent to
Bolivia, Nicaragua, Argentina, Ecuador, and Chile – countries that were
in alliance with President Chavez. This was a group of leaders who
wanted to be able to guarantee they maintained power in their countries.
When Chavez died, Smartmatic was in a position of being the only
- Page 5 of 8

74

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 8 Document 1-1

company that could guarantee results in Venezuelan elections for the
party in power.
21. I want to point out that the software and fundamental design of the
electronic electoral system and software of Dominion and other election
tabulating companies relies upon software that is a descendant of the
Smartmatic Electoral Management System. In short, the Smartmatic
software is in the DNA of every vote tabulating company’s software and
system.
22. Dominion is one of three major companies that tabulates votes in the
United States. Dominion uses the same methods and fundamentally same
software design for the storage, transfer and computation of voter
identification data and voting data. Dominion and Smartmatic did
business together. The software, hardware and system have the same
fundamental flaws which allow multiple opportunities to corrupt the data
and mask the process in a way that the average person cannot detect any
fraud or manipulation. The fact that the voting machine displays a voting
result that the voter intends and then prints out a paper ballot which
reflects that change does not matter. It is the software that counts the
digitized vote and reports the results. The software itself is the one that
changes the information electronically to the result that the operator of
the software and vote counting system intends to produce that counts.
That’s how it is done. So the software, the software itself configures the
vote and voting result -- changing the selection made by the voter. The
software decides the result regardless of what the voter votes.
23. All of the computer controlled voting tabulation is done in a closed
environment so that the voter and any observer cannot detect what is
taking place unless there is a malfunction or other event which causes the
observer to question the process. I saw first-hand that the manipulation
and changing of votes can be done in real-time at the secret counting
center which existed in Caracas, Venezuela. For me it was something
very surprising and disturbing. I was in awe because I had never been
present to actually see it occur and I saw it happen. So, I learned firsthand that it doesn’t matter what the voter decides or what the paper
ballot says. It’s the software operator and the software that decides what
counts – not the voter.
24. If one questions the reliability of my observations, they only have to read
the words of
a time period in
- Page 6 of 8

75

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 8 Document 1-1

which Smartmatic had possession of all the votes and the voting, the votes
themselves and the voting information at their disposition in Venezuela.
he was assuring that the voting system implemented or used
by Smartmatic was completely secure, that it could not be compromised,
was not able to be altered.
25. But later, in 2017 when there were elections where Maduro was running
and elections for legislators in Venezuela,
and Smartmatic broke
their secrecy pact with the government of Venezuela. He made a public
announcement through the media in which he stated that all the
Smartmatic voting machines used during those elections were totally
manipulated and they were manipulated by the electoral council of
Venezuela back then.
stated that all of the votes for Nicholas
Maduro and the other persons running for the legislature were
manipulated and they actually had lost. So I think that's the greatest
proof that the fraud can be carried out and will be denied by the software
company that
admitted publicly that Smartmatic had created,
used and still uses vote counting software that can be manipulated or
altered.
26. I am alarmed because of what is occurring in plain sight during this 2020
election for President of the United States. The circumstances and events
are eerily reminiscent of what happened with Smartmatic software
electronically changing votes in the 2013 presidential election in
Venezuela. What happened in the United States was that the vote
counting was abruptly stopped in five states using Dominion software. At
the time that vote counting was stopped, Donald Trump was significantly
ahead in the votes. Then during the wee hours of the morning, when there
was no voting occurring and the vote count reporting was off-line,
something significantly changed. When the vote reporting resumed the
very next morning there was a very pronounced change in voting in favor
of the opposing candidate, Joe Biden.
27.

I have worked in gathering
information, researching, and working with information technology.
That's what I know how to do and the special knowledge that I have. Due
to these recent election events, I contacted a number of reliable and
intelligent ex-co-workers of mine that are still informants and work with
the intelligence community. I asked for them to give me information that
was up-to-date information in as far as how all these businesses are
acting, what actions they are taking.
- Page 7 of 8

76

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 8 Document 1-1

An Analysis of Surveys Regarding Absentee Ballots Across Several States
William M. Briggs
November 23, 2020

1

Summary

Survey data was collected from individuals in several states, sampling those who the states listed as not returning absentee
ballots. The data was provided by Matt Braynard.
The survey asked respondents whether they (a) had ever requested an absentee ballot, and, if so, (b) whether they had
in fact returned this ballot. From this sample I produce predictions of the total numbers of: Error #1, those who were
recorded as receiving absentee ballots without requesting them; and Error #2, those who returned absentee ballots but
whose votes went missing (i.e. marked as unreturned).
The sizes of both errors were large in each state. The states were Georgia, Michigan, Wisconsin, and Arizona where
ballots were across parties. Pennsylvania data was for Republicans only.

2

Analysis Description

Each analysis was carried out separately for each state. The analysis used (a) the number of absentee ballots recorded as
unreturned, (b) the total responding to the survey, (c) the total of those saying they did not request a ballot, (d) the total
of those saying they did request a ballot, and of these (e) the number saying they returned their ballots. I assume survery
respondents are representative and the data is accurate.
From these data a simple parameter-free predictive model was used to calculate the probability of all possible outcomes.
Pictures of these probabilities were derived, and the 95% prediction interval of the relevant numbers was calculated. The
pictures appear in the Appendix at the end. They are summarized here with their 95% prediction intervals.
Error #1: being recorded as sent an absentee ballot without requesting one.
Error #2: sending back an absentee ballot and having it recorded as not returned.
State
Unreturned ballots
Error #1
Error #2
Georgia
138,029
16,938–22,771
31,559–38,866
Michigan
139,190
29,611–36,529
27,928–34,710
Pennsylvania∗
165,412
32,414–37,444
26,954–31,643
Wisconsin
96,771
16,316–19,273
13,991–16,757
Arizona
518,560
208,333–229,937 78,714–94,975
∗
Number for Pennsylvania represent Republican ballots only.
Ballots that were not requested, and ballots returned and marked as not returned were classed as troublesome. The
estimated average number of troublesome ballots for each state were then calculated using the table above and are presented
next.
State

Estimated average
troublesome ballots
Georgia
138,029
53,489
Michigan
139,190
62,517
Pennsylvania∗
165,412
61,780
Wisconsin
96,771
29,594
Arizona
518,560
303,305
∗
Number for Pennsylvania represent Republican ballots only.

3

Unreturned ballots

Percent
39%
45%
37%
31%
58%

Conclusion

There are clearly a large number of troublesome ballots in each state investigated. Ballots marked as not returned that were
never requested are clearly an error of some kind. The error is not small as a percent of the total recorded unreturned ballots.

78

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 4 Document 1-2
1

Ballots sent back and unrecorded is a separate error. These represent votes that have gone missing, a serious mistake.
The number of these missing ballots is also large in each state.
Survey respondents were not asked if they received an unrequested ballot whether they sent these ballots back. This is
clearly a lively possibility, and represents a third possible source of error, including the potential of voting twice (once by
absentee and once at the polls). No estimates or likelihood can be calculated for this potential error due to absence of data.

4

Declaration of William M. Briggs, PhD

1. My name is William M. Briggs. I am over 18 years of age and am competent to testify in this action. All of the facts
stated herein are true and based on my personal knowledge.
2. I received a Ph.D of Statistics from Cornell University in 2004.
3. I am currently a statistical consultant. I make this declaration in my personal capacity.
4. I have analyzed data regarding responses to questions relating to mail ballot requests, returns and related issues.
5. I attest to a reasonable degree of professional certainty that the resulting analysis are accurate.
I declare under the penalty of perjury that the foregoing is true and correct.

23 November 2020
William M. Briggs

5

Appendix

The probability pictures for each state for each outcome as mentioned above.

Probability of numbers of un−requested absentee ballots listed as
not returned for Georgia
There is a 95 % chance from
between 16938 and 22771
absentee ballots were not
requested but marked as not
returned

Probability

0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Georgia
There is a 95 % chance from
between 31559 and 38866
absentee ballots were
returned but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

79

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 4 Document 1-2
2

Probability of numbers of un−requested absentee ballots listed as
not returned for Michigan
There is a 95 % chance from
between 29611 and 36529
absentee ballots were not
requested but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Michigan
There is a 95 % chance from
between 27928 and 34710
absentee ballots were
returned but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of un−requested absentee ballots listed as
not returned for Pennsylvania
0.00030

There is a 95 % chance from
between 32414 and 37444
absentee ballots were not
requested but marked as not
returned

Probability

0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

160,000

Ballots Listed as Not Returned

0.00035

Probability of numbers of absentee ballots returned but listed as
not returned for Pennsylvania
There is a 95 % chance from
between 26954 and 31643
absentee ballots were
returned but marked as not
returned

Probability

0.00030
0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

160,000

Ballots Listed as Not Returned

80

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 4 Document 1-2
3

Probability of numbers of un−requested absentee ballots listed as
not returned for Wisconsin
There is a 95 % chance from
between 16316 and 19273
absentee ballots were not
requested but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Wisconsin
There is a 95 % chance from
between 13991 and 16757
absentee ballots were
returned but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability

Probability of numbers of un−requested absentee ballots listed as
not returned for Arizona
0.00007
0.00006
0.00005
0.00004
0.00003
0.00002
0.00001
0.00000

There is a 95 % chance from
between 208333 and 229937
absentee ballots were not
requested but marked as not
returned

0

50,000

100,000

150,000

200,000

250,000

300,000

350,000

400,000

450,000

500,000

Ballots Listed as Not Returned

0.00010

Probability of numbers of absentee ballots returned but listed as
not returned for Arizona
There is a 95 % chance from
between 78714 and 94975
absentee ballots were
returned but marked as not
returned

Probability

0.00008
0.00006
0.00004
0.00002
0.00000
0

50,000

100,000

150,000

200,000

250,000

300,000

350,000

400,000

450,000

500,000

Ballots Listed as Not Returned

81

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 4 Document 1-2
4

AZ Unreturned Live Agent - Mass Markets
11/15/2020 11/16/2020 11/17/2020
745
1,881
2,978

5,604 Completes
684
1,945
2,975
74,437
1,663

Q4=01
VM
Message Left
Refused/Early
H
up/RC
No
Answer
Bad/Wrong
Numbers/Language

1-Completed Survey
2-Message Delivered VM
3-Refused
4-No Answer
5-Bad Number

116
90
539
6,764
245

212
657
1,012
25,056
384

356
1,198
1,424
42,617
1,034

100.00% List Penetration
81,708 Data Loads
Q1 - May I please speak to <lead
on screen>?
1,812
40.05%
335
7.40%
2,377
52.54%
0
0.00%
4,524
100.00%
Q2 - Did you request Absentee
Ballot in state of AZ?
1,120

82

Response
A-Reached
B
What Is Target
is Ab
Uncertain
X = Refused
Sum of All Responses

11/15/2020 11/16/2020 11/17/2020
307
554
951
80
124
131
382
854
1,141
769

1,532

2,223

Response

45.00% A-Yes [Go to Q3]

11/15/2020 11/16/2020 11/17/2020
210

361

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 3 Document 1-3

549

885
24
21
72
7
360

2,489

35.56%
0.96%
0.84%
2.89%
0.28%
14.46%

100.00% Sum of All Responses

Q3 - Did you mail your ballot
344
16.16%
696
32.69%
11
0.52%
9
0.42%
14
0.66%
1,055
49.55%

2,129

B-No
Q4]
C Yes[Go
pertoSpou
Member)
to Q3]
D-N pe [Go
Spouse/fa
Member) [Go to Q4]
E-Unsure
A]
F
No Ava[Go
a eto Close
The M
[Go to Close A]
X = Refused

Response
A-Yes [Go to Q4]
B-No
C
Yes[Go
pertoSClose
ous A]
/fa
Member)
to Q4]
D-N
pe [Go
Spouse
fa
Member)
[Go
to
Close
A]
E-Unsure / R se [Go
Close A]
X = Refused

100.00% Sum of All Responses

162
5
3
10
45

435

286
9
10
18
1
69

754

437
10
8
44
6
246

1,300

11/15/2020 11/16/2020 11/17/2020
67
112
165
116
237
343
2
2
7
1
4
4
3
4
7
201
326
528

390

685

1,054

Q4 - Can you please give us the
best phone number to reach you Response
at?
11/15/2020 11/16/2020 11/17/2020
es (Capture umber) [Go to
678
82.48% Q5]
116
212
350
38
50
56
144
17.52% B-Refused [Go to Q5]

83

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 3 Document 1-3

0
0
822

0.00%
0.00%
100.00% Sum of All Responses

Q5 - Can you provide us your
email address?
18.57%
127
81.43%
557
0.00%
0
684
100.00%

84

Response
01-Yes [Go to Close B]
02-No [Go to Close B]
Sum of All Responses

154

262

406

11/15/2020 11/16/2020 11/17/2020
24
36
67
92
176
289
116

212

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 3 Document 1-3

356

An Analysis of Surveys Regarding Absentee Ballots In Wisconsin
William M. Briggs
November 23, 2020

1

Summary

Survey data was collected from individuals in Wisconsin, sampling those listed as not returning absentee ballots. The data
was provided by Matt Braynard.
The survey asked respondents whether they (a) had ever requested an absentee ballot, and, if so, (b) whether they had
in fact returned this ballot. From this sample I produce predictions of the total numbers of: Error #1, those who were
recorded as receiving absentee ballots without requesting them; and Error #2, those who returned absentee ballots but
whose votes went missing (i.e. marked as unreturned).
The sizes of both errors were large.

2

Analysis Description

The analysis used (a) the number of absentee ballots recorded as unreturned, (b) the total responding to the survey, (c) the
total of those saying they did not request a ballot, (d) the total of those saying they did request a ballot, and of these (e)
the number saying they returned their ballots. I assume survery respondents are representative and the data is accurate.
From these data a simple parameter-free predictive model was used to calculate the probability of all possible outcomes.
Pictures of these probabilities were derived, and the 95% prediction interval of the relevant numbers was calculated. The
pictures appear in the Appendix at the end. They are summarized here with their 95% prediction intervals.
Error #1: being recorded as sent an absentee ballot without requesting one.
Error #2: sending back an absentee ballot and having it recorded as not returned.
State
Wisconsin

Unreturned ballots
96,771

Error #1
16,316–19,273

Error #2
13,991–16,757

Ballots that were not requested, and ballots returned and marked as not returned were classed as troublesome. The
estimated average number of troublesome ballots were then calculated using the table above and are presented next.
State

Unreturned ballots

Wisconsin

3

96,771

Estimated average
troublesome ballots
29,594

Percent
31%

Conclusion

There are clearly a large number of troublesome ballots in Wisconsin. Ballots marked as not returned that were never
requested are clearly an error of some kind. The error is not small as a percent of the total recorded unreturned ballots.
Ballots sent back and unrecorded is a separate error. These represent votes that have gone missing, a serious mistake.
The number of these missing ballots is also large.
Survey respondents were not asked if they received an unrequested ballot whether they sent these ballots back. This is
clearly a lively possibility, and represents a third possible source of error, including the potential of voting twice (once by
absentee and once at the polls). No estimates or likelihood can be calculated for this potential error due to absence of data.

4

Declaration of William M. Briggs, PhD

1. My name is William M. Briggs. I am over 18 years of age and am competent to testify in this action. All of the facts
stated herein are true and based on my personal knowledge.
2. I received a Ph.D of Statistics from Cornell University in 2004.
3. I am currently a statistical consultant. I make this declaration in my personal capacity.
4. I have analyzed data regarding responses to questions relating to mail ballot requests, returns and related issues.

85

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 2 Document 1-4
1

5. I attest to a reasonable degree of professional certainty that the resulting analysis are accurate.
I declare under the penalty of perjury that the foregoing is true and correct.

23 November 2020
William M. Briggs

5

Appendix

The probability pictures for Wisconsin for each outcome as mentioned above.

Probability of numbers of un−requested absentee ballots listed as
not returned for Wisconsin
There is a 95 % chance from
between 16316 and 19273
absentee ballots were not
requested but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Wisconsin
There is a 95 % chance from
between 13991 and 16757
absentee ballots were
returned but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

86

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 2 Document 1-4
2

0270 PA Absentee Live ID Topline
11/9/2020 11/10/2020 11/11/2020
4419
13618
0

18037 Completes
834
14,203
3,000
3,521
0

survey** -gQ4=01
Answer
Machines
Refused/E
Hang up/RC
Bad/Wrong
Numbers/Languag
MA

status = C
status = AM
status = R, IR, RC, DC
status = D, BC,WN, NE
status = MA

178
3465
776
556

656
10738
2224
2965

87.70% List Penetration
24,581 Data Loads

24,581

Q1 - May I please speak to
<lead on screen>?
75.86%
2,262
14.15%
422
9.99%
298
24.78%
739
2,982
100.00%
Q2 - Did you request an
absentee ballot?
1,114
531

87

Response
1. Reached
to Q2].
2
What is Target
s ab [Go
ut?”/Uncer
Q2].
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

Response

43.91% 1. Yes. [Go to Go to Q3].
20.93% 2. No. [Go to Q4].

9-Nov
593
102
77
160
932

9-Nov

10-Nov

11-Nov

1,669
320
221
579
2789

10-Nov

331
131

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 2 Document 1-5

783
400

0

11-Nov

36
25
91
89
544
107
147
2,537

1.42%
0.99%
3.59%
3.51%
21.44%
4.22%
5.79%
100.00%

Q3 - Did you mail back that
ballot?
452
632
11
11
15
2
14
13
1,137

Response

39.75% 1. Yes. [Go to Go to Q4].
2. S
No use
[Go other
to Close
A].
55.58% 3
house
confirmed
to Q4]
0.97% 4
Spouse/“Yes”
the [Go
ho sehold
0.97% confirmed “No” [Go to Close A]
5. Unsure.
A].
1.32% 6
ctua [Go
rge to
noClose
avai a
0.18% moment. [Go to Close A]
1.23% X = Refused <Go to CLOSE A>
1.14% Q = Hangup <Go to CLOSE A>
100.00% Sum of All Responses

Q4 - Can you please give us
the best phone number to
reach you at?
87.61%
834
12.39%
118
7.04%
67
952
100.00%

88

confirmed
to Q3]
4 Spouse/“Yes”
the [Go
ho sehold
confirmed “No” [Go to Q4]
5.
6 Unsure.
ctua [Go
rge to
noQ3].
av
moment.
to Close
A]
Vote [Go
n erson
at Po
A]
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

Response
01 = Yes <Go to CLOSE B>
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

12
9
25
17
105
29
36
695

9-Nov

24
16
66
72
439
78
111
1989

10-Nov

90
229
1
4
6
0
5
8
343
9-Nov

0

11-Nov

362
403
10
7
9
2
9
5
807
10-Nov

178
36
17
231

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 2 Document 1-5

656
82
50
788

0
11-Nov

0

WI Unreturned Live Agent - Mass Markets
4,614
433
1,053
3,128
50,712
1,944

11/15/2020 11/16/2020 11/17/2020
3,483
1,131

Completes
Completed survey** - Q4=0 1-Completed Survey
VM Message Left
2-Message Delivered VM
Refused/Early Hang up/RC 3-Refused
No Answer
4-No Answer
Bad/Wrong Numbers/Langu5-Bad Number

-

300
804
2,379
40,391
1,289

133
249
749
10,321
655

100.00% List Penetration
57,271 Data Loads
Q1 - May I please speak to <lead on
screen>?
2,261
1,677
0
3,495

Response

A-Reached Target + B-What Is This
64.69% About? / Uncertain
47.98% X = Refused
0.00%
100.00% Sum of All Responses

Q2 - Did you request Absentee Ballot
Response
in state of WI?
1,699

89

62.39% A-Yes [Go to Q3]

11/15/2020 11/16/2020 11/17/2020
-

1,343
1,202

475
475

-

2,545

950

11/15/2020 11/16/2020 11/17/2020
-

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 4 Document 1-6

1,374

325

379
32
4
44
4
561

2,723

13.92% B-No [Go to Q4]
C-Yes (per Spouse/family Member)
1.18%
[Go to Q3]
D-No (per Spouse/family Member)
0.15%
[Go to Q4]
1.62% E-Unsure [Go to Close A]
F-Not Available At The Moment [Go
0.15%
to Close A]
20.60% X = Refused

100.00% Sum of All Responses

Q3 - Did you mail your ballot back?
Response
316
14.67% A-Yes [Go to Q4]
1,286
59.70% B-No [Go to Close A]
C-Yes (per Spouse/family Member)
9
0.42%
[Go to Q4]
D-No (per Spouse/family Member)
15
0.70%
[Go to Close A]
28
1.30% E-Unsure / Refused [Go to Close A]
500
23.21% X = Refused

2,154

90

100.00% Sum of All Responses

-

240

139

-

16

16

-

25

4
19

-

2
405

2
156

-

2,062

661

11/15/2020 11/16/2020 11/17/2020
238
78
1,069
217
-

4

5

-

8
24
314

7
4
186

-

1,657

497

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 4 Document 1-6

Q4 - Can you please give us the best
phone number to reach you at?
432
108
0
0
540

11/15/2020 11/16/2020 11/17/2020

80.00% A-Yes (Capture Number) [Go to Q5]
20.00% B-Refused [Go to Q5]
0.00%
0.00%
100.00% Sum of All Responses

Q5 - Can you provide us your email
address?
11.55%
50
88.45%
383
0.00%
0
433
100.00%

91

Response

Response
01-Yes [Go to Close B]
02-No [Go to Close B]
Sum of All Responses

-

300
77

132
31

-

377

163

11/15/2020 11/16/2020 11/17/2020
37
13
263
120
-

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 4 Document 1-6

300

133

92

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 4 Document 1-6

0276 GA Unreturned_Absentee Live ID Topl
15179 Completes
184
13,479
1,516
4,902
0

Completed survey** - Q5=01 or 02
Answering Machines
Refused/Early Hang up/RC
Bad/Wrong Numbers/Language Barrier
MA

58.45% List Penetration
34,355 Data Loads
Q1 - May I please speak to <lead on screen>?
65.28%
21.70%
13.02%
32.77%
100.00%

767
255
153
385
1,175

Q2 - Did you request an absentee ballot?

93

591

61.31%

128

13.28%

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 6 Document 1-7

39
14
40
82
70
58
964

4.05%
1.45%
4.15%
8.51%
7.26%
6.02%
100.00%

Q3 - Did you mail back that ballot?
240

38.52%

317
17
9
24
11
5
7
623

50.88%
2.73%
1.44%
3.85%
1.77%
0.80%
1.12%
100.00%

Q4 - Can you please give us the best phone number to
reach you at?
82.15%
313
12.86%
49
4.99%
19
4.72%
18
381
100.00%

94

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 6 Document 1-7

Q5 - May we please have an email address to follow-up
as well?
28.86%
99
66.76%
229
4.37%
15
5.54%
19
343
100.00%

95

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 6 Document 1-7

ine
11/16/2020 11/17/2020
8143
7036
status = C
status = AM
status = R, IR, RC, DC
status = D, BC,WN, NE
status = MA

64
7090
989
2436
0

120
6389
527
2466
0

34,355
Response

16-Nov

1. Reached Target [Go to Q2].
2. “What is this about?”/Uncertain [Go to Q2].
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

Response
1. Yes. [Go to Go to Q3].
2. No. [Go to Q4].

96

446
165
104
267
982

16-Nov
343
84

17-Nov
321
90
49
118
578

17-Nov
248
44

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 6 Document 1-7

3. Spouse/other household member confirmed “Yes” [Go to Q3]
4. Spouse/other household member confirmed “No” [Go to Q4]
5. Unsure. [Go to Q3].
6. Actual target not available at the moment. [Go to Close A]
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

Response

16-Nov

1. Yes. [Go to Go to Q4].
2. No. [Go to Close A].
3. Spouse/other household member confirmed “Yes” [Go to Q4]
4. Spouse/other household member confirmed “No” [Go to Close A
5. Unsure. [Go to Close A].
6. Actual target not available at the moment. [Go to Close A]
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses
Response

149
174
10
4
14
8
5
3
367
16-Nov

01 = Yes <Go to Q5>
02 = No <Go to Q5>
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

97

24
11
26
48
42
33
611

205
26
13
10
254

15
3
14
34
28
25
411

17-Nov
91
143
7
5
10
3
0
4
263
17-Nov
108
23
6
8
145

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 6 Document 1-7

Response

16-Nov

01 = Yes <Go to CLOSE B>
02 = No <Go to CLOSE B>
X = Refused <Go to CLOSE A>
Q = Hangup <Go to CLOSE A>
Sum of All Responses

98

64
144
11
12
231

17-Nov
35
85
4
7
131

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 6 Document 1-7

William M. Briggs, PhD
Statistician to the Stars!
matt@wmbriggs.com
917-392-0691
1. Experience
(1) 2016: Author of Uncertainty: The Soul of Modeling, Probability & Statistics, a book which argues for a complete and fundamental change in the
philosophy and practice of probability and statistics. Eliminate hypothesis
testing and estimation, and move to verifiable predictions. This includes
AI and machine learning. Call this The Great Reset, but a good one.
(2) 2004-2016 Adjunct Professor of Statistical Science, Cornell
University, Ithaca, New York
I taught a yearly Masters course to people who (rightfully) hate statistics.
Interests: philosophy of science & probability, epistemology, epidemiology
(ask me about the all-too-common epidemiologist fallacy), Bayesian statistics, medicine, climatology & meteorology, goodness of forecasts, overconfidence in science; public understanding of science, limitations of science,
scientism; scholastic metaphysics (as it relates to epistemology).
(3) 1998-present. Statistical consultant, Various companies
Most of my time is spent coaxing people out of their money to tell them
they are too sure of themselves. All manner of analyses cheerfully undertaken. Example: Fraud analysis; I created the Wall Street Journal’s
College Rankings. I consultant regularly at Methodist and other hospitals,
start-ups, start-downs, and with any instition willing to fork it over.
(4) 2003-2010. Research Scientist, New York Methodist Hospital,
New York
Besides the usual, I sit/sat on the Institutional Review Committee to assess
the statistics of proposed research. I was an Associate Editor for Monthly
Weather Review (through 2011). Also a member of the American Meteorological Society’s Probability and Statistics Committee (through 2011). At
a hospital? Yes, sir; at a hospital. It rains there, too, you know.
(5) Fall 2007, Fall 2010 Visiting Professor of Statistics, Department of Mathematics, Central Michigan University, Mt. Pleasant, MI
Who doesn’t love a visit from a statistician? Ask me about the difference
between “a degree” and “an education.”
(6) 2003-2007, Assistant Professor Statistics, Weill Medical College of Cornell University, New York, New York
Working here gave me a sincere appreciation of the influences of government
money; grants galore.
(7) 2002-2003. Gotham Risk Management, New York
A start-up then, after Enron’s shenanigans, a start-down. We set future
weather derivative and weather insurance contract prices that incorporated
information from medium- and long-range weather and climate forecasts.
(8) 1998-2002. DoubleClick, New York
Lead statistician. Lot of computer this and thats; enormous datasets.
(9) 1993-1998. Graduate student, Cornell University
1

99

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 13 Document 1-8

2

Meteorology, applied climatology, and finally statistics. Was Vice Chair of
the graduate student government; probably elected thanks to a miracle.
(10) 1992-1993. National Weather Service, Sault Ste. Marie, MI
Forecast storms o’ the day and launched enormous balloons in the name of
Science. My proudest moment came when I was able to convince an ancient
IBM-AT machine to talk to an analog, 110 baud, phone-coupled modem,
all using BASIC!
(11) 1989-1992. Undergraduate student, Central Michigan University
Meteorology and mathematics. Started the local student meteorology group
to chase tornadoes. Who knew Michigan had so few? Spent a summer at
U Michigan playing with a (science-fiction-sounding) lidar.
(12) 1983-1989. United States Air Force
Cryptography and other secret stuff. Shot things; learned pinochle. I
adopted and became proficient with a fascinating and versatile vocabulary.
Irritate me for examples. TS/SCI, etc. security clearance (now inactive).
2. Education
(1) Ph.D., 2004, Cornell University. Statistics.
(2) M.S., 1995, Cornell University. Atmospheric Science.
(3) B.S., Summa Cum Laude, 1992, Central Michigan University. Meteorology
and Math.
3. Publications
3.0.1. Popular.
(1) Op-eds in various newspapers; articles in Stream, Crisis Magazine, The
Remnant, Quadrant, Quirks; blog with ∼70,000 monthly readers. Various
briefs submitted to government agencies, such as California Air Resources
Board, Illinois Department of Natural Resources. Talks and holding-forths
of all kinds.
3.0.2. Books.
(1) Richards, JW, WM Briggs, and D Axe, 2020. UThe Price of Panic: How
the Tyranny of Experts Turned a Pandemic into a Catastrophe. Regnery.
Professors Jay Richards, William Briggs, and Douglas Axe take a deep dive
into the crucial questions on the minds of millions of Americans during one
of the most jarring and unprecedented global events in a generation.
(2) Briggs, WM., 2016. Uncertainty: The Soul of Modeling, Probability &
Statistics. Springer. Philosophy of probability and statistics. A new (old)
way to view and to use statistics, a way that doesn’t lead to heartbreak
and pandemic over-certainty, like current methods do.
(3) Briggs, WM., 2008 Breaking the Law of Averages: Real Life Probability and
Statistics in Plain English. Lulu Press, New York. Free text for undergraduates.
(4) Briggs, WM., 2006 So You Think You’re Psychic? Lulu Press, New York.
Hint: I’ll bet you’re not.

100

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 13 Document 1-8

3

3.0.3. Methods.

(1) Briggs, WM and J.C. Hanekamp, 2020. Uncertainty In The MAN Data
Calibration & Trend Estimates. Atmospheric Environment, In review.
(2) Briggs, WM and J.C. Hanekamp, 2020. Adjustments to the Ryden & McNeil Ammonia Flux Model. Soil Use and Management, In review.
(3) Briggs, William M., 2020. Parameter-Centric Analysis Grossly Exaggerates
Certainty. In Data Science for Financial Econometrics, V Kreinovich, NN
Thach, ND Trung, DV Thanh (eds.), In press.
(4) Briggs, WM, HT Nguyen, D Trafimow, 2019. Don’t Test, Decide. In
Behavioral Predictive Modeling in Econometrics, Springer, V Kreinovich, S
Sriboonchitta (eds.). In press.
(5) Briggs, William M. and HT Nguyen, 2019. Clarifying ASA’s view on pvalues in hypothesis testing. Asian Journal of Business and Economics,
03(02), 1–16.
(6) Briggs, William M., 2019. Reality-Based Probability & Statistics: Solving The Evidential Crisis (invited paper). Asian Journal of Business and
Economics, 03(01), 37–80.
(7) Briggs, William M., 2019. Everything Wrong with P-Values Under One
Roof. In Beyond Traditional Probabilistic Methods in Economics, V Kreinovich,
NN Thach, ND Trung, DV Thanh (eds.), pp 22—44.
(8) Briggs, WM, HT Nguyen, D Trafimow, 2019. The Replacement for Hypothesis Testing. In Structural Changes and Their Econometric Modeling,
Springer, V Kreinovich, S Sriboonchitta (eds.), pp 3—17.
(9) Trafimow, D, V Amrhein, CN Areshenkoff, C Barrera-Causil, ..., WM
Briggs, (45 others), 2018. Manipulating the alpha level cannot cure significance testing. Frontiers in Psychology, 9, 699. doi.org/10.3389/ fpsyg.2018.00699.
(10) Briggs, WM, 2018. Testing, Prediction, and Cause in Econometric Models.
In Econometrics for Financial Applications, ed. Anh, Dong, Kreinovich,
and Thach. Springer, New York, pp 3–19.
(11) Briggs, WM, 2017. The Substitute for p-Values. JASA, 112, 897–898.
(12) J.C. Hanekamp, M. Crok, M. Briggs, 2017. Ammoniak in Nederland.
Enkele kritische wetenschappelijke kanttekeningen. V-focus, Wageningen.
(13) Briggs, WM, 2017. Math: Old, New, and Equalitarian. Academic Questions, 30(4), 508–513.
(14) Monckton, C, W Soon, D Legates, ... (several others), WM Briggs 2018. On
an error in applying feedback theory to climate. In submission (currently
J. Climate).
(15) Briggs, WM, JC Hanekamp, M Crok, 2017. Comment on Goedhart and
Huijsmans. Soil Use and Management, 33(4), 603–604.
(16) Briggs, WM, JC Hanekamp, M Crok, 2017. Response to van Pul, van
Zanten and Wichink Kruit. Soil Use and Management, 33(4), 609–610.
(17) Jaap C. Hanekamp, William M. Briggs, and Marcel Crock, 2016. A volatile
discourse - reviewing aspects of ammonia emissions, models, and atmospheric concentrations in The Netherlands. Soil Use and Management,
33(2), 276–287.

101

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 13 Document 1-8

4

(18) Christopher Monckton of Brenchley, Willie Soon, David Legates, William
Briggs, 2015. Keeping it simple: the value of an irreducibly simple climate
model. Science Bulletin. August 2015, Volume 60, Issue 15, pp 1378–1390.
(19) Briggs, WM, 2015. The Third Way Of Probability & Statistics: Beyond
Testing and Estimation To Importance, Relevance, and Skill. arxiv.org/
abs/1508.02384.
(20) Briggs, WM, 2015. The Crisis Of Evidence: Why Probability And Statistics
Cannot Discover Cause. arxiv.org/abs/1507.07244.
(21) David R. Legates, Willie Soon, William M. Briggs, Christopher Monckton
of Brenchley, 2015. Climate Consensus and ‘Misinformation’: A Rejoinder
to Agnotology, Scientific Consensus, and the Teachingand Learning of Climate Change. Science and Education, 24, 299–318, DOI 10.1007/s11191013-9647-9.
(22) Briggs, WM, 2014. The Problem Of Grue Isn’t. arxiv.org/abs/1501.03811.
(23) Christopher Monckton of Brenchley, Willie Soon, David Legates, William
Briggs, 2014. Why models run hot: results from an irreducibly simple
climate model. Science Bulletin. January 2015, Volume 60, Issue 1, pp
122-135.
(24) Briggs, WM, 2014. Common Statistical Fallacies. Journal of American
Physicians and Surgeons, Volume 19 Number 2, 58–60.
(25) Aalt Bast, William M. Briggs, Edward J. Calabrese, Michael F. Fenech,
Jaap C. Hanekamp, Robert Heaney, Ger Rijkers, Bert Schwitters, Pieternel
Verhoeven, 2013. Scientism, Legalism and Precaution—Contending with
Regulating Nutrition and Health Claims in Europe. European Food and
Feed Law Review, 6, 401–409.
(26) Legates, DR, Soon, W, and Briggs, 2013. Learning and Teaching Climate
Science: The Perils of Consensus Knowledge Using Agnotology. Science
and Education, DOI 10.1007/s11191-013-9588-3.
(27) Briggs, WM, 2012. On Probability Leakage. arxiv.org/abs/1201.3611.
(28) Briggs, WM, 2012. Why do statisticians answer questions no one ever asks?
Significance. Volume 9 Issue 1 Doi: 10.1111/j.1740-9713.2012.00542.x. 30–
31.
(29) Briggs, WM, Soon, W, Legates, D, Carter, R, 2011. A Vaccine Against
Arrogance. Water, Air, & Soil Pollution: Volume 220, Issue 1 (2011),
Page 5-6
(30) Briggs, WM, and R Zaretzki, 2009. Induction and falsifiability in statistics.
arxiv.org/abs/math/0610859.
(31) Briggs, WM, 2011. Discussion to A Gelman. Why Tables are Really Much
Better than Graphs. Journal Computational and Graphical Statistics. Volume 20, 16–17.
(32) Zaretzki R, Gilchrist MA, Briggs WM, and Armagan A, 2010. Bias correction and Bayesian analysis of aggregate counts in SAGE libraries. BMC
Bioinformatics, 11:72doi:10.1186/1471-2105-11-72.
(33) Zaretzki, R, Briggs, W, Shankar, M, Sterling, M, 2009. Fitting distributions of large scale power outages: extreme values and the effect of
truncation. International Journal of Power and Energy Systems. DOI:
10.2316/Journal.203.2009.1.203-4374.

102

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 13 Document 1-8

5

(34) Briggs, WM, 2007. Changes in number and intensity of world-wide tropical
cyclones arxiv.org/physics/0702131.
(35) Briggs, WM, 2007. On the non-arbitrary assignment of equi-probable priors
arxiv.org/math.ST/0701331.
(36) Briggs, WM, 2007. On the changes in number and intensity of North
Atlantic tropical cyclones Journal of Climate. 21, 1387-1482.
(37) Briggs, WM, Positive evidence for non-arbitrary assignments of probability,
2007. Edited by Knuth et al. Proceedings 27th International Workshop on
Bayesian Inference and Maximum Entropy Methods in Science and Engineering. American Institute of Physics. 101-108.
(38) Briggs, WM, R Zaretzki, 2007. The Skill Plot: a graphical technique for
the evaluating the predictive usefulness of continuous diagnostic tests. With
Discussion. Biometrics. 64(1), 250-6; discussion 256-61. PMID: 18304288.
(39) Zaretzki R, Gilchrist MA, Briggs WM, 2010. MCMC Inference for a Model
with Sampling Bias: An Illustration using SAGE data. arxiv.org/abs/0711.3765
(40) Briggs, WM, and D Ruppert, 2006. Assessing the skill of yes/no forecasts
for Markov observations. Monthly Weather Review. 134, 2601-2611.
(41) Briggs, WM, 2007. Review of Statistical Methods in the Atmospheric Sciences (second edition, 2006) by Wilks, D.S. Journal of the American Statistical Association, 102, 380.
(42) Briggs, WM, M Pocernich, and D Ruppert, 2005. Incorporating misclassification error in skill assessment. Monthly Weather Review, 133(11), 33823392.
(43) Briggs, WM, 2005. A general method of incorporating forecast cost and
loss in value scores. Monthly Weather Review, 133(11), 3393-3397.
(44) Briggs, WM, and D Ruppert, 2005. Assessing the skill of Yes/No Predictions. Biometrics. 61(3), 799-807. PMID: 16135031.
(45) Briggs, WM, 2004. Discussion to T Gneiting, LI Stanberry, EP Grimit, L
Held, NA Johnson, 2008. Assessing probabilistic forecasts of multivariate
quantities, with an application to ensemble predictions of surface winds.
Test. 17, 240-242.
(46) Briggs, WM, 2004. Discussion to Gel, Y, AE Raftery, T Gneiting, and V.J.
Berrocal, 2004. Calibrated Probabilistic Mesoscale Weather Field Forecasting: The Geostatistical Output Perturbation (GOP) Method. J. American
Statistical Association. 99 (467): 586-587.
(47) Mozer, JB, and Briggs, WM, 2003. Skill in real-time solar wind shock
forecasts. J. Geophysical Research: Space Physics, 108 (A6), SSH 9 p.
1-9, (DOI 10.1029/2003JA009827).
(48) Briggs, WM, 1999. Review of Forecasting: Methods and Applications (third
edition, 1998) by Makridakis, Wheelwright, and Hyndman; and Elements
of Forecasting (first edition, 1998) by Diebold. Journal of the American
Statistical Association, 94, 345-346.
(49) Briggs, W.M., and R.A. Levine, 1997. Wavelets and Field Forecast Verification. Monthly Weather Review, 25 (6), 1329-1341.
(50) Briggs, WM, and DS Wilks, 1996. Estimating monthly and seasonal distributions of temperature and precipitation using the new CPC long-range
forecasts. Journal of Climate, 9, 818-826.

103

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 13 Document 1-8

6

(51) Briggs, WM, and DS Wilks, 1996. Extension of the CPC long-lead temperature and precipitation outlooks to general weather statistics. Journal
of Climate, 9, 3496-3504.

104

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 13 Document 1-8

7

3.0.4. Applications.

(1) Jamorabo, Daniel, Renelus, Benjamin, Briggs, WM, 2019. ”Comparative
outcomes of EUS-guided cystogastrostomy for peripancreatic fluid collections (PFCs): A systematic review and meta-analysis, 2019. Therapeutic
Advances in Gastrointestinal Endoscopy, in press.
(2) Benjamin Renelus, S Paul, S Peterson, N Dave, D amorabo, W Briggs,
P Kancharla, 2019. Racial disparities with esophageal cancer mortality
at a high-volume university affiliated center: An All ACCESS Invitation,
Journal of the National Medical Association, in press.
(3) Mehta, Bella, S Ibrahim, WM Briggs, and P Efthimiou, 2019. Racial/Ethnic
variations in morbidity and mortality in Adult Onset Still’s Disease: An
analysis of national dataset”, Seminars in Arthritis and Rheumatism, doi:
10.1016/j.semarthrit.2019.04.0044.
(4) Ivanov A, Dabiesingh DS, Bhumireddy GP, Mohamed A, Asfour A, Briggs
WM, Ho J, Khan SA, Grossman A, Klem I, Sacchi TJ, Heitner JF. Prevalence and Prognostic Significance of Left Ventricular Noncompaction in
Patients Referred for Cardiac Magnetic Resonance Imaging. Circ Cardiovasc Imaging. 2017 Sep;10(9). pii: e006174. doi: 10.1161/CIRCIMAGING.117.006174.
(5) Ivanov A, Kaczkowska BA, Khan SA, Ho J, Tavakol M, Prasad A, Bhumireddy G, Beall AF, Klem I, Mehta P, Briggs WM, fpaSacchi TJ, Heitner JF, 2017. Review and Analysis of Publication Trends over Three
Decades in Three High Impact Medicine Journals. PLoS One. 2017 Jan
20;12(1):e0170056. doi: 10.1371/journal.pone.0170056.
(6) A. Ivanova, G.P. Bhumireddy, D.S. Dabiesingh, S.A. Khana, J. Hoa N.
Krishna, N. Dontineni, J.A Socolow, W.M. Briggs, I. Klem, T.J. Sacchi,
J.F. Heitner, 2016. Importance of papillary muscle infarction detected by
cardiac magnetic resonance imaging in predicting cardiovascular events.
International Journal of Cardiology. Volume 220, 1 October 2016, Pages
558–563. PMID: 27390987.
(7) A Ivanov, J Yossef, J Taillon, B Worku, I Gulkarov, A Tortolani, TJ
Sacchi, WM Briggs, SJ Brener, JA Weingarten, JF Heitner, 2015. Do
pulmonary function tests improve risk stratification before cardiothoracic
surgery? Journal of Thoracic and Cardiovascular Surgery. 2015 Oct 30.
pii: S0022-5223(15)02165-0. doi: 10.101. PMID: 26704058.
(8) Chen O, Sharma A, Ahmad I, Bourji N, Nestoiter K, Hua P, Hua B, Ivanov
A, Yossef J, Klem I, Briggs WM, Sacchi TJ, Heitner JF, 2015. Correlation
between pericardial, mediastinal, and intrathoracic fat volumes with the
presence and severity of coronary artery disease, metabolic syndrome, and
cardiac risk factors. Eur Heart J Cardiovasc Imaging. 2015 Jan;16(1):3746. doi: 10.1093/ehjci/jeu145.
(9) Chery J, Semaan E, Darji S, Briggs W, Yarmush J, D’Ayala M, 2014.
Impact of regional versus general anesthesia on the clinical outcomes of
patients undergoing major lower extremity amputation. Ann Vasc Surg,
2014 Jul;28(5):1149-56. PMID: 24342828.
(10) Visconti A, Gaeta T, Cabezon M, Briggs W, Pyle M., 2013. Focused Board
Intervention (FBI): A Remediation Program for Written Board Preparation

105

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 13 Document 1-8

8

(11)

(12)

(13)

(14)

(15)

(16)

(17)

(18)

(19)

(20)

(21)

106

and the Medical Knowledge Core Competency. J Grad Med Educ. 2013
Sep;5(3):464-7. PMID: 24404311.
Annika Krystyna, D Kumari, R Tenney, R Kosanovic, T Safi, WM Briggs,
K Hennessey, M Skelly, E Enriquez, J Lajeune, W Ghani and MD Schwalb,
2013. Hepatitis c antibody testing in African American and Hispanic men
in New York City with prostate biopsy. Oncology Discovery, Vol 1. DOI:
10.7243/2052-6199-1-1.
Ziad Y. Fayad, Elie Semaan, Bashar Fahoum, W. Matt Briggs, Anthony
Tortolani, and Marcus D’Ayala, 2013. Aortic mural thrombus in the normal or minimally atherosclerotic aorta: A systematic review and metaanalysis of the available literature. Ann Vasc Surg., Apr;27(3):282-90.
DOI:10.1016/j.avsg.2012.03.011.
Elizabeth Haines, Gerardo Chiricolo, Kresimir Aralica, William Briggs,
Robert Van Amerongen, Andrew Laudenbach, Kevin O’Rourke, and Lawrence
Melniker MD, 2012. Derivation of a Pediatric Growth Curve for Inferior
Vena Caval Diameter in Healthy Pediatric Patients. Crit Ultrasound J.
2012 May 28;4(1):12. doi: 10.1186/2036-7902-4-12.
Wei Li, Piotr Gorecki, Elie Semaan, William Briggs, Anthony J. Tortolani,
Marcus D’Ayala, 2011. Concurrent Prophylactic Placement of Inferior Vena
Cava Filter in gastric bypass and adjustable banding operations: An analysis of the Bariatric Outcomes Longitudinal Database (BOLD). J. Vascular
Surg. 2012 Jun;55(6):1690-5. doi: 10.1016/j.jvs.2011.12.056.
Krystyna A, Kosanovic R, Tenney R, Safi T, Briggs WM, et al. (2011)
Colonoscopy Findings in Men with Transrectal Ultrasound Guided Prostate
Biopsy: Association of Colonic Lipoma with Prostate Cancer. J Cancer Sci
Ther S4:002. doi:10.4172/1948-5956.S4-002
Birkhahn RH, Wen W, Datillo PA, Briggs WM, Parekh A, Arkun A, Byrd
B, Gaeta TJ, 2012. Improving patient flow in acute coronary syndromes
in the face of hospital crowding. J Emerg Med. 2012 Aug;43(2):356-65.
PMID: 22015378.
Birkhahn RH, Haines E, Wen W, Reddy L, Briggs WM, Datillo PA., 2011.
Estimating the clinical impact of bringing a multimarker cardiac panel to
the bedside in the ED. Am J Emerg Med. 2011 Mar;29(3):304-8.
Krystyna A, Safi T, Briggs WM, Schwalb MD., 2011. Correlation of hepatitis C and prostate cancer, inverse correlation of basal cell hyperplasia
or prostatitis and epidemic syphilis of unknown duration. Int Braz J Urol.
2011 Mar-Apr;37(2):223-9; discussion 230.
Muniyappa R, Briggs WM, 2010. Limited Predictive Ability of Surrogate
Indices of Insulin Sensitivity/Resistance in Asian Indian Men: A Calibration Model Analysis. AJP - Endocrinology and Metabolism. 299(6):E110612. PMID: 20943755.
Birkhahn RH, Blomkalns A, Klausner H, Nowak R, Raja AS, Summers
R, Weber JE, Briggs WM, Arkun A, Diercks D. The association between
money and opinion in academic emergency medicine. West J Emerg Med.
2010 May;11(2):126-32. PMID: 20823958.
Loizzo JJ, Peterson JC, Charlson ME, Wolf EJ, Altemus M, Briggs WM,
Vahdat LT, Caputo TA, 2010. The effect of a contemplative self-healing

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 13 Document 1-8

9

(22)

(23)

(24)

(25)

(26)

(27)

(28)

(29)

(30)

(31)

(32)

(33)

107

program on quality of life in women with breast and gynecologic cancers.
Altern Ther Health Med., May-Jun;16(3):30-7. PMID: 20486622.
Krystyna A, Safi T, Briggs WM, Schwalb MD, 2010. Higher morbidity
in prostate cancer patients after transrectal ultrasound guided prostate
biopsy with 3-day oral ciprofloxacin prophylaxis, independent of number
of cores. Brazilian Journal of Urology. Mar-Apr;37(2):223-9; discussion
230. PMID:21557839.
Arkun A, Briggs WM, Patel S, Datillo PA, Bove J, Birkhahn RH, 2010.
Emergency department crowding: factors influencing flow West J Emerg
Med. Feb;11(1):10-5.PMID: 20411067.
Li W, D’Ayala M, Hirshberg A, Briggs W, Wise L, Tortolani A, 2010. Comparison of conservative and operative treatment for blunt carotid injuries:
analysis of the National Trauma Data Bank. J Vasc Surg.. Mar;51(3):5939, 599.e1-2.PMID: 20206804.
D’Ayala M, Huzar T, Briggs W, Fahoum B, Wong S, Wise L, Tortolani
A, 2010. Blood transfusion and its effect on the clinical outcomes of patients undergoing major lower extremity amputation. Ann Vasc Surg.,
May;24(4):468-73. Epub 2009 Nov 8.PMID: 19900785.
Tavakol M, Hassan KZ, Abdula RK, Briggs W, Oribabor CE, Tortolani AJ,
Sacchi TJ, Lee LY, Heitner JF., 2009. Utility of brain natriuretic peptide
as a predictor of atrial fibrillation after cardiac operations. Ann Thorac
Surg. Sep;88(3):802-7.PMID: 19699901.
Zandieh SO, Gershel JC, Briggs WM, Mancuso CA, Kuder JM., 2009. Revisiting predictors of parental health care-seeking behaviors for nonurgent
conditions at one inner-city hospital. Pediatr Emerg Care., Apr;25(4):238243.PMID: 19382324.
Birkhahn RH, Blomkalns AL, Klausner HA, Nowak RM, Raja AS, Summers RL, Weber JE, Briggs WM, Arkun A, Diercks D., 2008. Academic
emergency medicine faculty and industry relationships. Acad Emerg Med.,
Sep;15(9):819-24.PMID: 19244632.
Westermann H, Choi TN, Briggs WM, Charlson ME, Mancuso CA. Obesity
and exercise habits of asthmatic patients. Ann Allergy Asthma Immunol.
2008 Nov;101(5):488-94. doi: 10.1016/S1081-1206(10)60287-6.
Boutin-Foster C., Ogedegbe G., Peterson J., Briggs M., Allegrante J.,
Charlson ME., 2008. Psychosocial mediators of the relationship between
race/ethnicity and depressive symptoms in Latino and white patients with
coronary artery disease. J. National Medical Association. 100(7), 849-55.
PMID: 18672563
Charlson ME, Charlson RE, Marinopoulos S, McCulloch C, Briggs WM,
Hollenberg J, 2008. The Charlson comorbidity index is adapted to predict costs of chronic disease in primary care patients. J Clin Epidemiol,
Dec;61(12):1234-40. PMID: 18619805.
Mancuso CA, Westermann H, Choi TN, Wenderoth S, Briggs WM, Charlson ME, 2008. Psychological and somatic symptoms in screening for depression in asthma patients. J. Asthma. 45(3), 221-5. PMID: 18415830.
Ullery, BW, JC Peterson, FM, WM Briggs, LN Girardi, W Ko, AJ Tortolani, OW Isom, K Krieger, 2007. Cardiac Surgery in Nonagenarians:

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 13 Document 1-8

10

(34)

(35)

(36)

(37)

(38)

(39)

(40)

(41)

(42)

(43)

(44)

(45)

108

Should We or Shouldn’t We? Annals of Thoracic Surgery. 85(3), 854-60.
PMID: 18291156.
Mancuso, CA, T Choi, H Westermann, WM Briggs, S Wenderoth, 2007.
Patient-reported and Physician-reported Depressive Conditions in Relation
to Asthma Severity and Control. Chest. 133(5), 1142-8. PMID: 18263683.
Rosenzweig JS, Van Deusen SK, Okpara O, Datillo PA, Briggs WM, Birkhahn
RH, 2008. Authorship, collaboration, and predictors of extramural funding in the emergency medicine literature. Am J Emerg Med. 26(1), 5-9.
PMID: 18082774.
Westermann H, Choi TN, Briggs WM, Charlson ME, Mancuso CA, 2008.
Obesity and exercise habits of asthmatic patients. Ann Allergy Asthma
Immunol. Nov;101(5):488-94.PMID: 19055202.
Hogle NJ, Briggs WM, Fowler DL, 2007.Documenting a learning curve and
test-retest reliability of two tasks on a virtual reality training simulator in
laparoscopic surgery. J Surg Educ. 64(6), 424-30. PMID: 18063281.
D’Ayala, M, C Martone, R M Smith, WM Briggs, M Potouridis, J S Deitch,
and L Wise, 2006. The effect of systemic anticoagulation in patients undergoing angioaccess surgery. Annals of Vascular Surgery. 22(1), 11-5.
PMID: 18055171.
Charlson ME, Peterson F, Krieger K, Hartman GS, Hollenberg J, Briggs
WM, et al., 2007. Improvement of outcomes after coronary artery bypass II:
a randomized trial comparing intraoperative high versus customized mean
arterial pressure. J. Cardiac Surgey. 22(6), 465-72. PMID: 18039205.
Charlson ME, Peterson F, Boutin-Foster C, Briggs WM, Ogedegbe G, McCulloch C, et al., 2008. Changing health behaviors to improve health outcomes after angioplasty: a randomized trial of net present value versus
future value risk communication.. Health Education Research. 23(5), 82639. PMID: 18025064.
Charlson, M, Peterson J., Syat B, Briggs WM, Kline R, Dodd M, Murad
V, Dione W, 2007. Outcomes of Community Based Social Service Interventions in Homebound Elders Int. J. Geriatric Psychiatry. 23(4), 427-32.
PMID: 17918183.
Hogle NJ, Briggs WM, Fowler DL. Documenting a learning curve and
test-retest reliability of two tasks on a virtual reality training simulator
in laparoscopic surgery. J Surg Educ. 2007 Nov-Dec;64(6):424-30. PMID:
18063281.
Mancuso, CA, T Choi, H Westermann, WM Briggs, S Wenderoth, 2007.
Measuring physical activity in asthma patients: two-minute walk test, repeated chair rise test, and self-reported energy expenditure. J. Asthma.
44(4), 333-40. PMID: 17530534.
Charlson ME, Charlson RE, Briggs W, Hollenberg J, 2007. Can disease
management target patients most likely to generate high costs? The impact
of comorbidity. J Gen Intern Med. 22(4), 464-9. PMID: 17372794.
Charlson ME, Boutin-Foster C, Mancuso CA, Peterson F, Ogedegbe G,
Briggs WM, Robbins L, Isen A, Allegrante JP, 2006. Randomized Controlled Trials of Positive Affect and Self-affirmation to Facilitate Healthy

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 13 Document 1-8

11

(46)

(47)

(48)

(49)

(50)

(51)

(52)

(53)

(54)

(55)

Behaviors in Patients with Cardiopulmonary Diseases: Rationale, Trial Design, and Methods. Contemporary Clinical Trials. 28(6), 748-62. PMID:
17459784.
Charlson ME, Boutin-Foster C., Mancuso C., Ogedegbe G., Peterson J.,
Briggs M., Allegrante J., Robbins L., Isen A., 2007. Using positive affect
and self affirmation to inform and to improve self management behaviors
in cardiopulmonary patients: Design, rationale and methods. Controlled
Clinical Trials. November 2007 (Vol. 28, Issue 6, Pages 748-762).
Melniker LA, Leibner E, McKenney MG, Lopez P, Briggs WM, Mancuso
CA., 2006. Randomized Controlled Clinical Trial of Point-of-Care, Limited
Ultrasonography (PLUS) for Trauma in the Emergency Department: The
First Sonography Outcomes Assessment Program (SOAP-1) Trial. Annals
of Emergency Medicine. 48(3), 227-235. PMID: 16934640.
Milling, TJ, C Holden, LA Melniker, WM Briggs, R Birkhahn, TJ Gaeta,
2006. Randomized controlled trial of single-operator vs. two-operator ultrasound guidance for internal jugular central venous cannulation. Acad
Emerg Med., 13(3), 245-7. PMID: 16495416.
Milla F, Skubas N, Briggs WM, Girardi LN, Lee LY, Ko W, Tortolani AJ,
Krieger KH, Isom OW, Mack CA, 2006. Epicardial beating heart cryoablation using a novel argon-based cryoclamp and linear probe. J Thorac
Cardiovasc Surg., 131(2), 403-11. PMID: 16434271.
Birkhahn, SK Van Deusen, O Okpara, PA Datillo, WM Briggs, TJ Gaeta,
2006. Funding and publishing trends of original research by emergency
medicine investigators over the past decade. Annals of Emergency Medicine,
13(1), 95-101. PMID: 16365335.
Birkhahn, WM Briggs, PA Datillo, SK Van Deusen, TJ Gaeta, 2006. Classifying patients suspected of appendicitis with regard to likelihood. American
Journal of Surgery, 191(4), 497-502. PMID: 16531143
Charlson ME, Charlson RE, Briggs WM, Hollenberg J, 2006. Can disease
management target patients most likely to generate high costs. J. General
Internal Medicine. 22(4), 464-9.
Milling, TJ, J Rose, WM Briggs, R Birkhahn, TJ Gaeta, JJ Bove, and
LA Melniker, 2005. Randomized, controlled clinical trial of point-of-care
limited ultrasonography assistance of central venous cannulation: the Third
Sonography Outcomes Assessment Program (SOAP-3) Trial. Crit Care
Med. 33(8), 1764-9. PMID: 16096454.
Garfield JL, Birkhahn RH, Gaeta TJ, Briggs WM, 2004. Diagnostic Delays
and Pathways on Route to Operative Intervention in Acute Appendicitis.
American Surgeon. 70(11), 1010-1013. PMID: 15586517.
Birkhahn RH, Gaeta TJ, Tloczkowski J, Mundy TA, Sharma M, Bove JJ,
Briggs WM, 2003. Emergency medicine trained physicians are proficient in
the insertion of transvenous pacemakers. Annals of Emergency Medicine.
43 (4), 469-474. PMID: 15039689.

3.1. Talks (I am years behind updating these).
(1) Briggs, 2016. The Crisis Of Evidence: Probability & The Nature Of Cause.
Institute of Statistical Science, Academia Sinica, Taipei, Taiwan.
(2) Wei Li,Piotr Gorecki, Robert Autin, William Briggs, Elie Semaan, Anthony
J. Tortolani, Marcus D’Ayala, 2011. Concurrent Prophylactic Placement of

109

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 13 Document 1-8

12

(3)

(4)

(5)
(6)

(7)

(8)

(9)

(10)

(11)

(12)

(13)

(14)

110

Inferior Vena Cava Filter (CPPOIVCF) in Gastric Bypass and Adjustable
Banding Operations: An analysis of the Bariatric Outcomes Longitudinal
Database. Eastern Vascular Society 25th Annual Meeting, 2011.
Wei Li, Jo Daniel, James Rucinski, Syed Gardezi, Piotr Gorecki, Paul
Thodiyil, Bashar Fahoum, William Briggs, Leslie Wise, 2010. FACSFactors
affecting patient disposition after ambulatory laparoscopic cholecystectomy
(ALC) cheanalysis of the National Survey of Ambulatory Surgery (NSAS).
American College of Surgeons.
Wei Li, Marcus D’Ayala, et al., William Briggs, 2010. Coronary bypass and
carotid endarterectomy (CEA): does a combined operative approach offer
better outcome? - Outcome of different management strategies in patients
with carotid stenosis undergoing coronary artery bypass grafting (CABG).
Vascular Annual Meeting.
Briggs, WM, 2007. On equi-probable priors, MAX ENT 2007, Saratoga
Springs, NY.
Briggs, WM, and RA Zaretzki, 2006. On producing probability forecasts
(from ensembles). 18th Conf. on Probability and Statistics in the Atmospheric Sciences, Atlanta, GA, Amer. Meteor. Soc.
Briggs, WM, and RA Zaretzki, 2006. Improvements on the ROC Curve:
Skill Plots for Forecast Evaluation. Invited. Joint Research Conference on
Statistics in Quality Industry and Technology, Knoxville, TN.
Briggs, WM, and RA Zaretzki, 2005. Skill Curves and ROC Curves for
Diagnoses, or Why Skill Curves are More Fun. Joint Statistical Meetings,
American Stat. Soc., Minneapolis, MN.
Briggs W.M., 2005. On the optimal combination of probabilistic forecasts
to maximize skill. International Symposium on Forecasting San Antonio,
TX. International Institute of Forecasters.
Briggs, WM, and D Ruppert, 2004. Assessing the skill of yes/no forecasts
for Markov observations. 17th Conf. on Probability and Statistics in the
Atmospheric Sciences, Seattle, WA, Amer. Meteor. Soc.
Melniker, L, E Liebner, B Tiffany, P Lopez, WM Briggs, M McKenney,
2004. Randomized clinical trial of point-of-care limited ultrasonography
(PLUS) for trauma in the emergency department. Annals of Emergency
Medicine, 44.
Birkhahn RH, Gaeta TJ, Van Deusen SK, Briggs WM, 2004. Classifying
patients suspected of appendicitis with regard to likelihood. Annals of
Emergency Medicine, 44 (4): S17-S17 51 Suppl. S.
Zandieh, SO, WM Briggs, JM Kuder, and CA Mancuso, 2004. Negative
perceptions of health care among caregivers of children auto-assigned to
a Medicaid managed care health plan. Ambulatory Pediatric Association
Meeting, San Francisco, CA; and National Research Service Award Trainees
Conference, San Diego, CA.
Melniker, L, E Liebner, B Tiffany, P Lopez, M Sharma, WM Briggs, M
McKenney, 2003. Cost Analysis of Point-of-care, Limited Ultrasonography (PLUS) in Trauma Patients: The Sonography Outcomes Assessment
Program (SOAP)-1 Trial. Academic Emergency Medicine, 11, 568.

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 13 Document 1-8

13

(15) Melniker, LA, WM Briggs, and CA Mancuso, 2003. Including comorbidity in the assessment of trauma patients: a revision of the trauma injury
severity score. J. Clin Epidemiology, Sep., 56(9), 921. PMID: 14505784.
(16) Briggs, WM, and RA Levine, 1998. Comparison of forecasts using the
bootstrap. 14th Conf. on Probability and Statistics in the Atmospheric
Sciences Phoenix, AZ, Amer. Meteor. Soc., 1-4.
(17) Briggs, WM, and R Zaretzki, 1998. The effect of randomly spaced observations on field forecast error scores. 14th Conf. on Probability and Statistics
in the Atmospheric Sciences Phoenix, AZ, Amer. Meteor. Soc., 5-8.
(18) Briggs, WM, and RA Levine, 1996. Wavelets and image comparison: new
approaches to field forecast verification. 13th Conf. on Probability and
Statistics in the Atmospheric Sciences, San Francisco, CA, Amer. Meteor.
Soc., 274-277.
(19) Briggs, WM, and DS Wilks, 1996. Modifying parameters of a daily stochastic weather generator using long-range forecasts. 13th Conf. on Probability
and Statistics in the Atmospheric Sciences, San Francisco, CA, Amer. Meteor. Soc., 243-2246.

111

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 13 Document 1-8

Pursuant to 28 U.S.C Section 1746, I,

, make the following

declaration.
1. I am over the age of 21 years and am a resident of Monroe County,
Florida.
2. I am under no legal disability that would prevent me from giving this
declaration.
3. I hold a Bachelor of Science degree in Mathematics and a Master of
Science degree in Statistics.
4. For thirty years, I have conducted statistical data analysis for
companies in various industries, including aerospace, consumer
packaged goods, disease detection and tracking, and fraud detection.
5. From November 13th, 2020 through November 28th, 2020, I conducted
in-depth statistical analysis of publicly available data on the 2020
U.S. Presidential Election. This data included vote counts for each
county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee.
6. The analysis yielded several “red flags” concerning the percentage of
votes won by candidate Biden in counties using voting machines
provided by Dominion Voting Systems. These red flags occurred in
several States in the country, including Wisconsin.
7. I began by using Chi-Squared Automatic Interaction Detection
(CHAID), which treats the data in an agnostic way—that is, it
imposes no parametric assumptions that could otherwise introduce
bias. Here, I posed the following question: “Do any voting machine

136

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 4 Document 1-11

types appear to have unusual results?” The answer provided by the
statistical technique/algorithm was that machines from Dominion
Voting Systems (Dominion) produced abnormal results.
8. Subsequent graphical and statistical analysis shows the unusual
pattern involving machines from Dominion occurs in at least 100
counties and multiple States, including Wisconsin.
9. The results from most, if not all counties using the Dominion
machines is three to five point six percentage points higher in favor
of candidate Biden than the results should be. This pattern is seen
easily in graphical form when the results from “Dominion” counties
are overlaid against results from “non-Dominion” counties. The
results from “Dominion” counties do not match the results from the
rest of the counties in the United States. The results are certainly
statistically significant, with a p-value of < 0.00004. This translates
into a statistical impossibility that something unusual involving
Dominion machines is not occurring. This pattern appears in
multiple States, including Wisconsin, and the margin of votes
implied by the unusual activity would easily sway the election
results.
10.

The following graph shows the pattern. The large red dots are

counties in Wisconsin that use Dominion voting machines. Almost
all of them are above the blue prediction line, when in normal
situations approximately half of them would be below the prediction
line (as evidence by approximately half the counties in the U.S. (blue
dots) that are below the blue centerline). The p-value of statistical
analysis regarding the centerline for the red dots (Wisconsin counties
137

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 4 Document 1-11

with Dominion machines) is 0.000000049, pointing to a statistical
impossibility that this is a “random” statistical anomaly. Some
external force caused this anomaly

11.

To confirm that Dominion machines were the source of the

pattern/anomaly, I conducted further analysis using propensity
scoring using U.S. census variables (Including ethnicities, income,
professions, population density and other social/economic data) ,
which was used to place counties into paired groups. Such an
analysis is important because one concern could be that counties
with Dominion systems are systematically different from their
counterparts, so abnormalities in the margin for Biden are driven by
other characteristics unrelated to the election.

138

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 4 Document 1-11

12.

After matching counties using propensity score analysis, the only

difference between the groups was the presence of Dominion
machines. This approach again showed a highly statistically
significant difference between the two groups, with candidate Biden
again averaging three percentage points higher in Dominion counties
than in the associated paired county. The associated p-value is <
0.00005, against indicating a statistical impossibility that something
unusual is not occurring involving Dominion machines.
13.

The results of the analysis and the pattern seen in the included

graph strongly suggest a systemic, system-wide algorithm was
enacted by an outside agent, causing the results of Wisconsin’s vote
tallies to be inflated by somewhere between three and five point six
percentage points. Statistical estimating yields that in Wisconsin,
the best estimate of the number of impacted votes is 181,440.
However, a 95% confidence interval calculation yields that as many
as 236,520 votes may have been impacted.

I declare under penalty of perjury that the forgoing is true and correct.
Executed this November 28th, 2020.
,
/s/

139

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 4 Document 1-11

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03

CITY OF ADAMS - 01201
TOWN OF ADAMS - 01002
TOWN OF BIG FLATS - 01004
TOWN OF COLBURN - 01006
TOWN OF DELL PRAIRIE - 01008
TOWN OF EASTON - 01010
TOWN OF JACKSON - 01012
TOWN OF LEOLA - 01014
TOWN OF LINCOLN - 01016
TOWN OF MONROE - 01018
TOWN OF NEW CHESTER - 01020
TOWN OF NEW HAVEN - 01022
TOWN OF PRESTON - 01024
TOWN OF QUINCY - 01026
TOWN OF RICHFIELD - 01028
TOWN OF ROME - 01030
TOWN OF SPRINGVILLE - 01032
TOWN OF STRONGS PRAIRIE - 01034
VILLAGE OF FRIENDSHIP - 01126
CITY OF ASHLAND - MAIN - 02201
CITY OF MELLEN - 02251
TOWN OF AGENDA - 02002
TOWN OF ASHLAND - 02004
TOWN OF CHIPPEWA - 02006
TOWN OF GINGLES - 02008
TOWN OF GORDON - 02010
TOWN OF JACOBS - 02012
TOWN OF LA POINTE - 02014
TOWN OF MARENGO - 02016
TOWN OF MORSE - 02018
TOWN OF PEEKSVILLE - 02020
TOWN OF SANBORN - 02022
TOWN OF SHANAGOLDEN - 02024
TOWN OF WHITE RIVER - 02026
VILLAGE OF BUTTERNUT - 02106
CITY OF BARRON - 03206
CITY OF CHETEK - 03211
CITY OF CUMBERLAND - 03212
CITY OF RICE LAKE - 03276
TOWN OF ALMENA - 03002
TOWN OF ARLAND - 03004
TOWN OF BARRON - 03006
TOWN OF BEAR LAKE - 03008
TOWN OF CEDAR LAKE - 03010
TOWN OF CHETEK - 03012

ES&S DS200
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
None
None
None
ES&S M100
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
Sequoia Voting - Optech Insight
None

ES&S AutoMARK
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
Vote Pad
Vote Pad
ES&S AutoMARK
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

140

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04

TOWN OF CLINTON - 03014
TOWN OF CRYSTAL LAKE - 03016
TOWN OF CUMBERLAND - 03018
TOWN OF DALLAS - 03020
TOWN OF DOVRE - 03022
TOWN OF DOYLE - 03024
TOWN OF LAKELAND - 03026
TOWN OF MAPLE GROVE - 03028
TOWN OF MAPLE PLAIN - 03030
TOWN OF OAK GROVE - 03032
TOWN OF PRAIRIE FARM - 03034
TOWN OF PRAIRIE LAKE - 03036
TOWN OF RICE LAKE - 03038
TOWN OF SIOUX CREEK - 03040
TOWN OF STANFOLD - 03042
TOWN OF STANLEY - 03044
TOWN OF SUMNER - 03046
TOWN OF TURTLE LAKE - 03048
TOWN OF VANCE CREEK - 03050
VILLAGE OF ALMENA - 03101
VILLAGE OF CAMERON - 03111
VILLAGE OF DALLAS - 03116
VILLAGE OF HAUGEN - 03136
VILLAGE OF PRAIRIE FARM - 03171
VILLAGE OF TURTLE LAKE - MAIN - 03186
CITY OF BAYFIELD - 04206
CITY OF WASHBURN - 04291
TOWN OF BARKSDALE - 04002
TOWN OF BARNES - 04004
TOWN OF BAYFIELD - 04006
TOWN OF BAYVIEW - 04008
TOWN OF BELL - 04010
TOWN OF CABLE - 04012
TOWN OF CLOVER - 04014
TOWN OF DELTA - 04016
TOWN OF DRUMMOND - 04018
TOWN OF EILEEN - 04020
TOWN OF GRAND VIEW - 04021
TOWN OF HUGHES - 04022
TOWN OF IRON RIVER - 04024
TOWN OF KELLY - 04026
TOWN OF KEYSTONE - 04028
TOWN OF LINCOLN - 04030
TOWN OF MASON - 04032
TOWN OF NAMAKAGON - 04034

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
None
None
None
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
None
ES&S M100
None
None
None
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
None
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

141

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06

TOWN OF ORIENTA - 04036
TOWN OF OULU - 04038
TOWN OF PILSEN - 04040
TOWN OF PORT WING - 04042
TOWN OF RUSSELL - 04046
TOWN OF TRIPP - 04048
TOWN OF WASHBURN - 04050
VILLAGE OF MASON - 04151
CITY OF DE PERE - 05216
CITY OF GREEN BAY - 05231
TOWN OF EATON - 05010
TOWN OF GLENMORE - 05012
TOWN OF GREEN BAY - 05014
TOWN OF HOLLAND - 05018
TOWN OF HUMBOLDT - 05022
TOWN OF LAWRENCE - 05024
TOWN OF LEDGEVIEW - 05025
TOWN OF MORRISON - 05026
TOWN OF NEW DENMARK - 05028
TOWN OF PITTSFIELD - 05030
TOWN OF ROCKLAND - 05034
TOWN OF SCOTT - 05036
TOWN OF WRIGHTSTOWN - 05040
VILLAGE OF ALLOUEZ - 05102
VILLAGE OF ASHWAUBENON - 05104
VILLAGE OF BELLEVUE - 05106
VILLAGE OF DENMARK - 05116
VILLAGE OF HOBART - 05126
VILLAGE OF HOWARD - MAIN - 05136
VILLAGE OF PULASKI - MAIN - 05171
VILLAGE OF SUAMICO - 05178
VILLAGE OF WRIGHTSTOWN - MAIN - 05191
CITY OF ALMA - 06201
CITY OF BUFFALO CITY - 06206
CITY OF FOUNTAIN CITY - 06226
CITY OF MONDOVI - 06251
TOWN OF ALMA - 06002
TOWN OF BELVIDERE - 06004
TOWN OF BUFFALO - 06006
TOWN OF CANTON - 06008
TOWN OF CROSS - 06010
TOWN OF DOVER - 06012
TOWN OF GILMANTON - 06014
TOWN OF GLENCOE - 06016
TOWN OF LINCOLN - 06018

None
ES&S M100
None
None
ES&S M100
None
ES&S M100
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

142

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08

TOWN OF MAXVILLE - 06020
TOWN OF MILTON - 06022
TOWN OF MODENA - 06024
TOWN OF MONDOVI - 06026
TOWN OF MONTANA - 06028
TOWN OF NAPLES - 06030
TOWN OF NELSON - 06032
TOWN OF WAUMANDEE - 06034
VILLAGE OF COCHRANE - 06111
VILLAGE OF NELSON - 06154
TOWN OF ANDERSON - 07002
TOWN OF BLAINE - 07004
TOWN OF DANIELS - 07006
TOWN OF DEWEY - 07008
TOWN OF GRANTSBURG - 07010
TOWN OF JACKSON - 07012
TOWN OF LA FOLLETTE - 07014
TOWN OF LINCOLN - 07016
TOWN OF MEENON - 07018
TOWN OF OAKLAND - 07020
TOWN OF ROOSEVELT - 07022
TOWN OF RUSK - 07024
TOWN OF SAND LAKE - 07026
TOWN OF SCOTT - 07028
TOWN OF SIREN - 07030
TOWN OF SWISS - 07032
TOWN OF TRADE LAKE - 07034
TOWN OF UNION - 07036
TOWN OF WEBB LAKE - 07038
TOWN OF WEST MARSHLAND - 07040
TOWN OF WOOD RIVER - 07042
VILLAGE OF GRANTSBURG - 07131
VILLAGE OF SIREN - 07181
VILLAGE OF WEBSTER - 07191
CITY OF BRILLION - 08206
CITY OF CHILTON - 08211
CITY OF NEW HOLSTEIN - 08261
TOWN OF BRILLION - 08002
TOWN OF BROTHERTOWN - 08004
TOWN OF CHARLESTOWN - 08006
TOWN OF CHILTON - 08008
TOWN OF HARRISON - 08010
TOWN OF NEW HOLSTEIN - 08012
TOWN OF RANTOUL - 08014
TOWN OF STOCKBRIDGE - 08016

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

143

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10

TOWN OF WOODVILLE - 08018
VILLAGE OF HARRISON - MAIN - 08131
VILLAGE OF HILBERT - 08136
VILLAGE OF POTTER - 08160
VILLAGE OF SHERWOOD - 08179
VILLAGE OF STOCKBRIDGE - 08181
CITY OF BLOOMER - 09206
CITY OF CHIPPEWA FALLS - 09211
CITY OF CORNELL - 09213
CITY OF STANLEY - MAIN - 09281
TOWN OF ANSON - 09002
TOWN OF ARTHUR - 09004
TOWN OF AUBURN - 09006
TOWN OF BIRCH CREEK - 09008
TOWN OF BLOOMER - 09010
TOWN OF CLEVELAND - 09012
TOWN OF COLBURN - 09014
TOWN OF COOKS VALLEY - 09016
TOWN OF DELMAR - 09018
TOWN OF EAGLE POINT - 09020
TOWN OF EDSON - 09022
TOWN OF ESTELLA - 09024
TOWN OF GOETZ - 09026
TOWN OF HALLIE - 09028
TOWN OF HOWARD - 09032
TOWN OF LAFAYETTE - 09034
TOWN OF LAKE HOLCOMBE - 09035
TOWN OF RUBY - 09036
TOWN OF SAMPSON - 09038
TOWN OF SIGEL - 09040
TOWN OF TILDEN - 09042
TOWN OF WHEATON - 09044
TOWN OF WOODMOHR - 09046
VILLAGE OF BOYD - 09106
VILLAGE OF CADOTT - 09111
VILLAGE OF LAKE HALLIE - 09128
VILLAGE OF NEW AUBURN - MAIN - 09161
CITY OF ABBOTSFORD - MAIN - 10201
CITY OF COLBY - MAIN - 10211
CITY OF GREENWOOD - 10231
CITY OF LOYAL - 10246
CITY OF NEILLSVILLE - 10261
CITY OF OWEN - 10265
CITY OF THORP - 10286
TOWN OF BEAVER - 10002

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

144

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11

TOWN OF BUTLER - 10004
TOWN OF COLBY - 10006
TOWN OF DEWHURST - 10008
TOWN OF EATON - 10010
TOWN OF FOSTER - 10012
TOWN OF FREMONT - 10014
TOWN OF GRANT - 10016
TOWN OF GREEN GROVE - 10018
TOWN OF HENDREN - 10020
TOWN OF HEWETT - 10022
TOWN OF HIXON - 10024
TOWN OF HOARD - 10026
TOWN OF LEVIS - 10028
TOWN OF LONGWOOD - 10030
TOWN OF LOYAL - 10032
TOWN OF LYNN - 10034
TOWN OF MAYVILLE - 10036
TOWN OF MEAD - 10038
TOWN OF MENTOR - 10040
TOWN OF PINE VALLEY - 10042
TOWN OF RESEBURG - 10044
TOWN OF SEIF - 10046
TOWN OF SHERMAN - 10048
TOWN OF SHERWOOD - 10050
TOWN OF THORP - 10052
TOWN OF UNITY - 10054
TOWN OF WARNER - 10056
TOWN OF WASHBURN - 10058
TOWN OF WESTON - 10060
TOWN OF WITHEE - 10062
TOWN OF WORDEN - 10064
TOWN OF YORK - 10066
VILLAGE OF CURTISS - 10111
VILLAGE OF DORCHESTER - MAIN - 10116
VILLAGE OF GRANTON - 10131
VILLAGE OF WITHEE - 10191
CITY OF COLUMBUS - MAIN - 11211
CITY OF LODI - 11246
CITY OF PORTAGE - 11271
CITY OF WISCONSIN DELLS - MAIN - 11291
TOWN OF ARLINGTON - 11002
TOWN OF CALEDONIA - 11004
TOWN OF COLUMBUS - 11006
TOWN OF COURTLAND - 11008
TOWN OF DEKORRA - 11010

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S AutoMARK
ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

145

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12

TOWN OF FORT WINNEBAGO - 11012
TOWN OF FOUNTAIN PRAIRIE - 11014
TOWN OF HAMPDEN - 11016
TOWN OF LEEDS - 11018
TOWN OF LEWISTON - 11020
TOWN OF LODI - 11022
TOWN OF LOWVILLE - 11024
TOWN OF MARCELLON - 11026
TOWN OF NEWPORT - 11028
TOWN OF OTSEGO - 11030
TOWN OF PACIFIC - 11032
TOWN OF RANDOLPH - 11034
TOWN OF SCOTT - 11036
TOWN OF SPRINGVALE - 11038
TOWN OF WEST POINT - 11040
TOWN OF WYOCENA - 11042
VILLAGE OF ARLINGTON - 11101
VILLAGE OF CAMBRIA - 11111
VILLAGE OF DOYLESTOWN - 11116
VILLAGE OF FALL RIVER - 11126
VILLAGE OF FRIESLAND - 11127
VILLAGE OF PARDEEVILLE - 11171
VILLAGE OF POYNETTE - 11172
VILLAGE OF RIO - 11177
VILLAGE OF WYOCENA - 11191
CITY OF PRAIRIE DU CHIEN - 12271
TOWN OF BRIDGEPORT - 12002
TOWN OF CLAYTON - 12004
TOWN OF EASTMAN - 12006
TOWN OF FREEMAN - 12008
TOWN OF HANEY - 12010
TOWN OF MARIETTA - 12012
TOWN OF PRAIRIE DU CHIEN - 12014
TOWN OF SCOTT - 12016
TOWN OF SENECA - 12018
TOWN OF UTICA - 12020
TOWN OF WAUZEKA - 12022
VILLAGE OF BELL CENTER - 12106
VILLAGE OF DE SOTO VILLAGE OF EASTMAN - 12121
VILLAGE OF FERRYVILLE - 12126
VILLAGE OF GAYS MILLS - 12131
VILLAGE OF LYNXVILLE - 12146
VILLAGE OF MT. STERLING - 12151
VILLAGE OF SOLDIERS GROVE - 12181

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

146

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13

VILLAGE OF STEUBEN - 12182
VILLAGE OF WAUZEKA - 12191
CITY OF FITCHBURG - 13225
CITY OF MADISON - 13251
CITY OF MIDDLETON - 13255
CITY OF MONONA - 13258
CITY OF STOUGHTON - 13281
CITY OF SUN PRAIRIE - 13282
CITY OF VERONA - 13286
TOWN OF ALBION - 13002
TOWN OF BERRY - 13004
TOWN OF BLACK EARTH - 13006
TOWN OF BLOOMING GROVE - 13008
TOWN OF BLUE MOUNDS - 13010
TOWN OF BRISTOL - 13012
TOWN OF BURKE - 13014
TOWN OF CHRISTIANA - 13016
TOWN OF COTTAGE GROVE - 13018
TOWN OF CROSS PLAINS - 13020
TOWN OF DANE - 13022
TOWN OF DEERFIELD - 13024
TOWN OF DUNKIRK - 13026
TOWN OF DUNN - 13028
TOWN OF MADISON - 13032
TOWN OF MAZOMANIE - 13034
TOWN OF MEDINA - 13036
TOWN OF MIDDLETON - 13038
TOWN OF MONTROSE - 13040
TOWN OF OREGON - 13042
TOWN OF PERRY - 13044
TOWN OF PLEASANT SPRINGS - 13046
TOWN OF PRIMROSE - 13048
TOWN OF ROXBURY - 13050
TOWN OF RUTLAND - 13052
TOWN OF SPRINGDALE - 13054
TOWN OF SPRINGFIELD - 13056
TOWN OF SUN PRAIRIE - 13058
TOWN OF VERMONT - 13060
TOWN OF VERONA - 13062
TOWN OF VIENNA - 13064
TOWN OF WESTPORT - 13066
TOWN OF WINDSOR - 13068
TOWN OF YORK - 13070
VILLAGE OF BELLEVILLE - MAIN - 13106
VILLAGE OF BLACK EARTH - 13107

None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

147

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14

VILLAGE OF BLUE MOUNDS - 13108
VILLAGE OF BROOKLYN - MAIN - 13109
VILLAGE OF CAMBRIDGE - MAIN - 13111
VILLAGE OF COTTAGE GROVE - 13112
VILLAGE OF CROSS PLAINS - 13113
VILLAGE OF DANE - 13116
VILLAGE OF DEERFIELD - 13117
VILLAGE OF DEFOREST - 13118
VILLAGE OF MAPLE BLUFF - 13151
VILLAGE OF MARSHALL - 13152
VILLAGE OF MAZOMANIE - 13153
VILLAGE OF MCFARLAND - 13154
VILLAGE OF MOUNT HOREB - 13157
VILLAGE OF OREGON - 13165
VILLAGE OF ROCKDALE - 13176
VILLAGE OF SHOREWOOD HILLS - 13181
VILLAGE OF WAUNAKEE - 13191
CITY OF BEAVER DAM - 14206
CITY OF FOX LAKE - 14226
CITY OF HORICON - 14236
CITY OF JUNEAU - 14241
CITY OF MAYVILLE - 14251
CITY OF WAUPUN - MAIN - 14292
TOWN OF ASHIPPUN - 14002
TOWN OF BEAVER DAM - 14004
TOWN OF BURNETT - 14006
TOWN OF CALAMUS - 14008
TOWN OF CHESTER - 14010
TOWN OF CLYMAN - 14012
TOWN OF ELBA - 14014
TOWN OF EMMET - 14016
TOWN OF FOX LAKE - 14018
TOWN OF HERMAN - 14020
TOWN OF HUBBARD - 14022
TOWN OF HUSTISFORD - 14024
TOWN OF LEBANON - 14026
TOWN OF LEROY - 14028
TOWN OF LOMIRA - 14030
TOWN OF LOWELL - 14032
TOWN OF OAK GROVE - 14034
TOWN OF PORTLAND - 14036
TOWN OF RUBICON - 14038
TOWN OF SHIELDS - 14040
TOWN OF THERESA - 14042
TOWN OF TRENTON - 14044

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

148

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOUGLAS COUNTY - 16 as of 8/2018
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16

TOWN OF WESTFORD - 14046
TOWN OF WILLIAMSTOWN - 14048
VILLAGE OF BROWNSVILLE - 14106
VILLAGE OF CLYMAN - 14111
VILLAGE OF HUSTISFORD - 14136
VILLAGE OF IRON RIDGE - 14141
VILLAGE OF KEKOSKEE - 14143
VILLAGE OF LOMIRA - 14146
VILLAGE OF LOWELL - 14147
VILLAGE OF NEOSHO - 14161
VILLAGE OF RANDOLPH - MAIN - 14176
VILLAGE OF REESEVILLE - 14177
VILLAGE OF THERESA - 14186
CITY OF STURGEON BAY - 15281
TOWN OF BAILEYS HARBOR - 15002
TOWN OF BRUSSELS - 15004
TOWN OF CLAY BANKS - 15006
TOWN OF EGG HARBOR - 15008
TOWN OF FORESTVILLE - 15010
TOWN OF GARDNER - 15012
TOWN OF GIBRALTAR - 15014
TOWN OF JACKSONPORT - 15016
TOWN OF LIBERTY GROVE - 15018
TOWN OF NASEWAUPEE - 15020
TOWN OF SEVASTOPOL - 15022
TOWN OF STURGEON BAY - 15024
TOWN OF UNION - 15026
TOWN OF WASHINGTON - 15028
VILLAGE OF EGG HARBOR - 15118
VILLAGE OF EPHRAIM - 15121
VILLAGE OF FORESTVILLE - 15127
VILLAGE OF SISTER BAY - 15181
CITY OF SUPERIOR - 16281
TOWN OF AMNICON - 16002
TOWN OF BENNETT - 16004
TOWN OF BRULE - 16006
TOWN OF CLOVERLAND - 16008
TOWN OF DAIRYLAND - 16010
TOWN OF GORDON - 16012
TOWN OF HAWTHORNE - 16014
TOWN OF HIGHLAND - 16016
TOWN OF LAKESIDE - 16018
TOWN OF MAPLE - 16020
TOWN OF OAKLAND - 16022
TOWN OF PARKLAND - 16024

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

149

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18

TOWN OF SOLON SPRINGS - 16026
TOWN OF SUMMIT - 16028
TOWN OF SUPERIOR - 16030
TOWN OF WASCOTT - 16032
VILLAGE OF LAKE NEBAGAMON - 16146
VILLAGE OF OLIVER - 16165
VILLAGE OF POPLAR - 16171
VILLAGE OF SOLON SPRINGS - 16181
VILLAGE OF SUPERIOR - 16182
CITY OF MENOMONIE - 17251
TOWN OF COLFAX - 17002
TOWN OF DUNN - 17004
TOWN OF EAU GALLE - 17006
TOWN OF ELK MOUND - 17008
TOWN OF GRANT - 17010
TOWN OF HAY RIVER - 17012
TOWN OF LUCAS - 17014
TOWN OF MENOMONIE - 17016
TOWN OF NEW HAVEN - 17018
TOWN OF OTTER CREEK - 17020
TOWN OF PERU - 17022
TOWN OF RED CEDAR - 17024
TOWN OF ROCK CREEK - 17026
TOWN OF SAND CREEK - 17028
TOWN OF SHERIDAN - 17030
TOWN OF SHERMAN - 17032
TOWN OF SPRING BROOK - 17034
TOWN OF STANTON - 17036
TOWN OF TAINTER - 17038
TOWN OF TIFFANY - 17040
TOWN OF WESTON - 17042
TOWN OF WILSON - 17044
VILLAGE OF BOYCEVILLE - 17106
VILLAGE OF COLFAX - 17111
VILLAGE OF DOWNING - 17116
VILLAGE OF ELK MOUND - 17121
VILLAGE OF KNAPP - 17141
VILLAGE OF RIDGELAND - 17176
VILLAGE OF WHEELER - 17191
CITY OF ALTOONA - 18201
CITY OF AUGUSTA - 18202
CITY OF EAU CLAIRE - MAIN - 18221
TOWN OF BRIDGE CREEK - 18002
TOWN OF BRUNSWICK - 18004
TOWN OF CLEAR CREEK - 18006

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

150

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20

TOWN OF DRAMMEN - 18008
TOWN OF FAIRCHILD - 18010
TOWN OF LINCOLN - 18012
TOWN OF LUDINGTON - 18014
TOWN OF OTTER CREEK - 18016
TOWN OF PLEASANT VALLEY - 18018
TOWN OF SEYMOUR - 18020
TOWN OF UNION - 18022
TOWN OF WASHINGTON - 18024
TOWN OF WILSON - 18026
VILLAGE OF FAIRCHILD - 18126
VILLAGE OF FALL CREEK - 18127
TOWN OF AURORA - 19002
TOWN OF COMMONWEALTH - 19004
TOWN OF FENCE - 19006
TOWN OF FERN - 19008
TOWN OF FLORENCE - 19010
TOWN OF HOMESTEAD - 19012
TOWN OF LONG LAKE - 19014
TOWN OF TIPLER - 19016
CITY OF FOND DU LAC - 20226
CITY OF RIPON - 20276
CITY OF WAUPUN - 14292
TOWN OF ALTO - 20002
TOWN OF ASHFORD - 20004
TOWN OF AUBURN - 20006
TOWN OF BYRON - 20008
TOWN OF CALUMET - 20010
TOWN OF EDEN - 20012
TOWN OF ELDORADO - 20014
TOWN OF EMPIRE - 20016
TOWN OF FOND DU LAC - 20018
TOWN OF FOREST - 20020
TOWN OF FRIENDSHIP - 20022
TOWN OF LAMARTINE - 20024
TOWN OF MARSHFIELD - 20026
TOWN OF METOMEN - 20028
TOWN OF OAKFIELD - 20030
TOWN OF OSCEOLA - 20032
TOWN OF RIPON - 20034
TOWN OF ROSENDALE - 20036
TOWN OF SPRINGVALE - 20038
TOWN OF TAYCHEEDAH - 20040
TOWN OF WAUPUN - 20042
VILLAGE OF BRANDON - 20106

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

151

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22

VILLAGE OF CAMPBELLSPORT - 20111
VILLAGE OF EDEN - 20121
VILLAGE OF FAIRWATER - 20126
VILLAGE OF MOUNT CALVARY - 20151
VILLAGE OF NORTH FOND DU LAC - 20161
VILLAGE OF OAKFIELD - 20165
VILLAGE OF ROSENDALE - 20176
VILLAGE OF ST. CLOUD - 20181
CITY OF CRANDON - 21211
TOWN OF ALVIN - 21002
TOWN OF ARGONNE - 21004
TOWN OF ARMSTRONG CREEK - 21006
TOWN OF BLACKWELL - 21008
TOWN OF CASWELL - 21010
TOWN OF CRANDON - 21012
TOWN OF FREEDOM - 21014
TOWN OF HILES - 21016
TOWN OF LAONA - 21018
TOWN OF LINCOLN - 21020
TOWN OF NASHVILLE - 21022
TOWN OF POPPLE RIVER - 21024
TOWN OF ROSS - 21026
TOWN OF WABENO - 21028
CITY OF BOSCOBEL - 22206
CITY OF CUBA CITY - MAIN - 22211
CITY OF FENNIMORE - 22226
CITY OF LANCASTER - 22246
CITY OF PLATTEVILLE - 22271
TOWN OF BEETOWN - 22002
TOWN OF BLOOMINGTON - 22004
TOWN OF BOSCOBEL - 22006
TOWN OF CASSVILLE - 22008
TOWN OF CASTLE ROCK - 22010
TOWN OF CLIFTON - 22012
TOWN OF ELLENBORO - 22014
TOWN OF FENNIMORE - 22016
TOWN OF GLEN HAVEN - 22018
TOWN OF HARRISON - 22020
TOWN OF HAZEL GREEN - 22022
TOWN OF HICKORY GROVE - 22024
TOWN OF JAMESTOWN - 22026
TOWN OF LIBERTY - 22028
TOWN OF LIMA - 22030
TOWN OF LITTLE GRANT - 22032
TOWN OF MARION - 22034

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

152

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23

TOWN OF MILLVILLE - 22036
TOWN OF MOUNT HOPE - 22038
TOWN OF MOUNT IDA - 22040
TOWN OF MUSCODA - 22042
TOWN OF NORTH LANCASTER - 22044
TOWN OF PARIS - 22046
TOWN OF PATCH GROVE - 22048
TOWN OF PLATTEVILLE - 22050
TOWN OF POTOSI - 22052
TOWN OF SMELSER - 22054
TOWN OF SOUTH LANCASTER - 22056
TOWN OF WATERLOO - 22058
TOWN OF WATTERSTOWN - 22060
TOWN OF WINGVILLE - 22062
TOWN OF WOODMAN - 22064
TOWN OF WYALUSING - 22066
VILLAGE OF BAGLEY - 22106
VILLAGE OF BLOOMINGTON - 22107
VILLAGE OF BLUE RIVER - 22108
VILLAGE OF CASSVILLE - 22111
VILLAGE OF DICKEYVILLE - 22116
VILLAGE OF HAZEL GREEN - MAIN - 22136
VILLAGE OF LIVINGSTON - MAIN - 22147
VILLAGE OF MONTFORT - MAIN - 22151
VILLAGE OF MOUNT HOPE - 22152
VILLAGE OF MUSCODA - MAIN - 22153
VILLAGE OF PATCH GROVE - 22171
VILLAGE OF POTOSI - 22172
VILLAGE OF TENNYSON - 22186
VILLAGE OF WOODMAN - 22191
CITY OF BRODHEAD - MAIN - 23206
CITY OF MONROE - 23251
TOWN OF ADAMS - 23002
TOWN OF ALBANY - 23004
TOWN OF BROOKLYN - 23006
TOWN OF CADIZ - 23008
TOWN OF CLARNO - 23010
TOWN OF DECATUR - 23012
TOWN OF EXETER - 23014
TOWN OF JEFFERSON - 23016
TOWN OF JORDAN - 23018
TOWN OF MONROE - 23020
TOWN OF MOUNT PLEASANT - 23022
TOWN OF NEW GLARUS - 23024
TOWN OF SPRING GROVE - 23026

None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

153

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25

TOWN OF SYLVESTER - 23028
TOWN OF WASHINGTON - 23030
TOWN OF YORK - 23032
VILLAGE OF ALBANY - 23101
VILLAGE OF BROWNTOWN - 23110
VILLAGE OF MONTICELLO - 23151
VILLAGE OF NEW GLARUS - 23161
CITY OF BERLIN - MAIN - 24206
CITY OF GREEN LAKE - 24231
CITY OF MARKESAN - 24251
CITY OF PRINCETON - 24271
TOWN OF BERLIN - 24002
TOWN OF BROOKLYN - 24004
TOWN OF GREEN LAKE - 24006
TOWN OF KINGSTON - 24008
TOWN OF MACKFORD - 24010
TOWN OF MANCHESTER - 24012
TOWN OF MARQUETTE - 24014
TOWN OF PRINCETON - 24016
TOWN OF SENECA - 24020
TOWN OF ST. MARIE - 24018
VILLAGE OF KINGSTON - 24141
VILLAGE OF MARQUETTE - 24154
CITY OF DODGEVILLE - 25216
CITY OF MINERAL POINT - 25251
TOWN OF ARENA - 25002
TOWN OF BRIGHAM - 25004
TOWN OF CLYDE - 25006
TOWN OF DODGEVILLE - 25008
TOWN OF EDEN - 25010
TOWN OF HIGHLAND - 25012
TOWN OF LINDEN - 25014
TOWN OF MIFFLIN - 25016
TOWN OF MINERAL POINT - 25018
TOWN OF MOSCOW - 25020
TOWN OF PULASKI - 25022
TOWN OF RIDGEWAY - 25024
TOWN OF WALDWICK - 25026
TOWN OF WYOMING - 25028
VILLAGE OF ARENA - 25101
VILLAGE OF AVOCA - 25102
VILLAGE OF BARNEVELD - 25106
VILLAGE OF COBB - 25111
VILLAGE OF HIGHLAND - 25136
VILLAGE OF HOLLANDALE - 25137

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

154

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28

VILLAGE OF LINDEN - 25146
VILLAGE OF REWEY - 25176
VILLAGE OF RIDGEWAY - 25177
CITY OF HURLEY - 26236
CITY OF MONTREAL - 26251
TOWN OF ANDERSON - 26002
TOWN OF CAREY - 26004
TOWN OF GURNEY - 26006
TOWN OF KIMBALL - 26008
TOWN OF KNIGHT - 26010
TOWN OF MERCER - 26012
TOWN OF OMA - 26014
TOWN OF PENCE - 26016
TOWN OF SAXON - 26018
TOWN OF SHERMAN - 26020
CITY OF BLACK RIVER FALLS - 27206
TOWN OF ADAMS - 27002
TOWN OF ALBION - 27004
TOWN OF ALMA - 27006
TOWN OF BEAR BLUFF - 27008
TOWN OF BROCKWAY - 27010
TOWN OF CITY POINT - 27012
TOWN OF CLEVELAND - 27014
TOWN OF CURRAN - 27016
TOWN OF FRANKLIN - 27018
TOWN OF GARDEN VALLEY - 27020
TOWN OF GARFIELD - 27022
TOWN OF HIXTON - 27024
TOWN OF IRVING - 27026
TOWN OF KNAPP - 27028
TOWN OF KOMENSKY - 27030
TOWN OF MANCHESTER - 27032
TOWN OF MELROSE - 27034
TOWN OF MILLSTON - 27036
TOWN OF NORTH BEND - 27038
TOWN OF NORTHFIELD - 27040
TOWN OF SPRINGFIELD - 27042
VILLAGE OF ALMA CENTER - 27101
VILLAGE OF HIXTON - 27136
VILLAGE OF MELROSE - 27151
VILLAGE OF MERRILLAN - 27152
VILLAGE OF TAYLOR - 27186
CITY OF FORT ATKINSON - 28226
CITY OF JEFFERSON - 28241
CITY OF LAKE MILLS - 28246

None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

155

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29

CITY OF WATERLOO - 28290
CITY OF WATERTOWN - MAIN - 28291
TOWN OF AZTALAN - 28002
TOWN OF COLD SPRING - 28004
TOWN OF CONCORD - 28006
TOWN OF FARMINGTON - 28008
TOWN OF HEBRON - 28010
TOWN OF IXONIA - 28012
TOWN OF JEFFERSON - 28014
TOWN OF KOSHKONONG - 28016
TOWN OF LAKE MILLS - 28018
TOWN OF MILFORD - 28020
TOWN OF OAKLAND - 28022
TOWN OF PALMYRA - 28024
TOWN OF SULLIVAN - 28026
TOWN OF SUMNER - 28028
TOWN OF WATERLOO - 28030
TOWN OF WATERTOWN - 28032
VILLAGE OF JOHNSON CREEK - 28141
VILLAGE OF PALMYRA - 28171
VILLAGE OF SULLIVAN - 28181
CITY OF ELROY - 29221
CITY OF MAUSTON - 29251
CITY OF NEW LISBON - 29261
TOWN OF ARMENIA - 29002
TOWN OF CLEARFIELD - 29004
TOWN OF CUTLER - 29006
TOWN OF FINLEY - 29008
TOWN OF FOUNTAIN - 29010
TOWN OF GERMANTOWN - 29012
TOWN OF KILDARE - 29014
TOWN OF KINGSTON - 29016
TOWN OF LEMONWEIR - 29018
TOWN OF LINDINA - 29020
TOWN OF LISBON - 29022
TOWN OF LYNDON - 29024
TOWN OF MARION - 29026
TOWN OF NECEDAH - 29028
TOWN OF ORANGE - 29030
TOWN OF PLYMOUTH - 29032
TOWN OF SEVEN MILE CREEK - 29034
TOWN OF SUMMIT - 29036
TOWN OF WONEWOC - 29038
VILLAGE OF CAMP DOUGLAS - 29111
VILLAGE OF HUSTLER - 29136

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
Sequoia Voting - Optech Insight
None
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

156

Case 2:20-cv-01771-PP Filed 12/01/20 Page 17 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32

VILLAGE OF LYNDON STATION - 29146
VILLAGE OF NECEDAH - 29161
VILLAGE OF UNION CENTER - 29186
VILLAGE OF WONEWOC - 29191
CITY OF KENOSHA - 30241
TOWN OF BRIGHTON - 30002
TOWN OF PARIS - 30006
TOWN OF RANDALL - 30010
TOWN OF SALEM - 30012
TOWN OF SOMERS - 30014
TOWN OF WHEATLAND - 30016
VILLAGE OF BRISTOL - 30104
VILLAGE OF PADDOCK LAKE - 30171
VILLAGE OF PLEASANT PRAIRIE - 30174
VILLAGE OF SILVER LAKE - 30181
VILLAGE OF SOMERS - 30182
VILLAGE OF TWIN LAKES - 30186
CITY OF ALGOMA - 31201
CITY OF KEWAUNEE - 31241
TOWN OF AHNAPEE - 31002
TOWN OF CARLTON - 31004
TOWN OF CASCO - 31006
TOWN OF FRANKLIN - 31008
TOWN OF LINCOLN - 31010
TOWN OF LUXEMBURG - 31012
TOWN OF MONTPELIER - 31014
TOWN OF PIERCE - 31016
TOWN OF RED RIVER - 31018
TOWN OF WEST KEWAUNEE - 31020
VILLAGE OF CASCO - 31111
VILLAGE OF LUXEMBURG - 31146
CITY OF LA CROSSE - 32246
CITY OF ONALASKA - 32265
TOWN OF BANGOR - 32002
TOWN OF BARRE - 32004
TOWN OF BURNS - 32006
TOWN OF CAMPBELL - 32008
TOWN OF FARMINGTON - 32010
TOWN OF GREENFIELD - 32012
TOWN OF HAMILTON - 32014
TOWN OF HOLLAND - 32016
TOWN OF MEDARY - 32018
TOWN OF ONALASKA - 32020
TOWN OF SHELBY - 32022
TOWN OF WASHINGTON - 32024

None
Dominion Voting - ImageCast Evolution (ICE)
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

157

Case 2:20-cv-01771-PP Filed 12/01/20 Page 18 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34

VILLAGE OF BANGOR - 32106
VILLAGE OF HOLMEN - 32136
VILLAGE OF ROCKLAND - 32176
VILLAGE OF WEST SALEM - 32191
CITY OF DARLINGTON - 33216
CITY OF SHULLSBURG - 33281
TOWN OF ARGYLE - 33002
TOWN OF BELMONT - 33004
TOWN OF BENTON - 33006
TOWN OF BLANCHARD - 33008
TOWN OF DARLINGTON - 33010
TOWN OF ELK GROVE - 33012
TOWN OF FAYETTE - 33014
TOWN OF GRATIOT - 33016
TOWN OF KENDALL - 33018
TOWN OF LAMONT - 33020
TOWN OF MONTICELLO - 33022
TOWN OF NEW DIGGINGS - 33024
TOWN OF SEYMOUR - 33026
TOWN OF SHULLSBURG - 33028
TOWN OF WAYNE - 33030
TOWN OF WHITE OAK SPRINGS - 33032
TOWN OF WILLOW SPRINGS - 33034
TOWN OF WIOTA - 33036
VILLAGE OF ARGYLE - 33101
VILLAGE OF BELMONT - 33106
VILLAGE OF BENTON - 33107
VILLAGE OF BLANCHARDVILLE - MAIN - 33108
VILLAGE OF GRATIOT - 33131
VILLAGE OF SOUTH WAYNE - 33181
CITY OF ANTIGO - 34201
TOWN OF ACKLEY - 34002
TOWN OF AINSWORTH - 34004
TOWN OF ANTIGO - 34006
TOWN OF ELCHO - 34008
TOWN OF EVERGREEN - 34010
TOWN OF LANGLADE - 34012
TOWN OF NEVA - 34014
TOWN OF NORWOOD - 34016
TOWN OF PARRISH - 34018
TOWN OF PECK - 34020
TOWN OF POLAR - 34022
TOWN OF PRICE - 34024
TOWN OF ROLLING - 34026
TOWN OF SUMMIT - 34028

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

158

Case 2:20-cv-01771-PP Filed 12/01/20 Page 19 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36

TOWN OF UPHAM - 34030
TOWN OF VILAS - 34032
TOWN OF WOLF RIVER - 34034
VILLAGE OF WHITE LAKE - 34191
CITY OF MERRILL - 35251
CITY OF TOMAHAWK - 35286
TOWN OF BIRCH - 35002
TOWN OF BRADLEY - 35004
TOWN OF CORNING - 35006
TOWN OF HARDING - 35008
TOWN OF HARRISON - 35010
TOWN OF KING - 35012
TOWN OF MERRILL - 35014
TOWN OF PINE RIVER - 35016
TOWN OF ROCK FALLS - 35018
TOWN OF RUSSELL - 35020
TOWN OF SCHLEY - 35022
TOWN OF SCOTT - 35024
TOWN OF SKANAWAN - 35026
TOWN OF SOMO - 35028
TOWN OF TOMAHAWK - 35030
TOWN OF WILSON - 35032
CITY OF KIEL - MAIN - 36241
CITY OF MANITOWOC - 36251
CITY OF TWO RIVERS - 36286
TOWN OF CATO - 36002
TOWN OF CENTERVILLE - 36004
TOWN OF COOPERSTOWN - 36006
TOWN OF EATON - 36008
TOWN OF FRANKLIN - 36010
TOWN OF GIBSON - 36012
TOWN OF KOSSUTH - 36014
TOWN OF LIBERTY - 36016
TOWN OF MANITOWOC - 36018
TOWN OF MANITOWOC RAPIDS - 36020
TOWN OF MAPLE GROVE - 36022
TOWN OF MEEME - 36024
TOWN OF MISHICOT - 36026
TOWN OF NEWTON - 36028
TOWN OF ROCKLAND - 36030
TOWN OF SCHLESWIG - 36032
TOWN OF TWO CREEKS - 36034
TOWN OF TWO RIVERS - 36036
VILLAGE OF CLEVELAND - 36112
VILLAGE OF FRANCIS CREEK - 36126

None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S M100
ES&S DS200
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

159

Case 2:20-cv-01771-PP Filed 12/01/20 Page 20 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37

VILLAGE OF KELLNERSVILLE - 36132
VILLAGE OF MARIBEL - 36147
VILLAGE OF MISHICOT - 36151
VILLAGE OF REEDSVILLE - 36176
VILLAGE OF ST. NAZIANZ - 36181
VILLAGE OF VALDERS - 36186
VILLAGE OF WHITELAW - 36191
CITY OF MOSINEE - 37251
CITY OF SCHOFIELD - 37281
CITY OF WAUSAU - 37291
TOWN OF BERGEN - 37002
TOWN OF BERLIN - 37004
TOWN OF BERN - 37006
TOWN OF BEVENT - 37008
TOWN OF BRIGHTON - 37010
TOWN OF CASSEL - 37012
TOWN OF CLEVELAND - 37014
TOWN OF DAY - 37016
TOWN OF EASTON - 37018
TOWN OF EAU PLEINE - 37020
TOWN OF ELDERON - 37022
TOWN OF EMMET - 37024
TOWN OF FRANKFORT - 37026
TOWN OF FRANZEN - 37028
TOWN OF GREEN VALLEY - 37030
TOWN OF GUENTHER - 37032
TOWN OF HALSEY - 37034
TOWN OF HAMBURG - 37036
TOWN OF HARRISON - 37038
TOWN OF HEWITT - 37040
TOWN OF HOLTON - 37042
TOWN OF HULL - 37044
TOWN OF JOHNSON - 37046
TOWN OF KNOWLTON - 37048
TOWN OF MAINE - 37052
TOWN OF MARATHON - 37054
TOWN OF MCMILLAN - 37056
TOWN OF MOSINEE - 37058
TOWN OF NORRIE - 37060
TOWN OF PLOVER - 37062
TOWN OF REID - 37064
TOWN OF RIB FALLS - 37066
TOWN OF RIB MOUNTAIN - 37068
TOWN OF RIETBROCK - 37070
TOWN OF RINGLE - 37072

ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

160

Case 2:20-cv-01771-PP Filed 12/01/20 Page 21 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARQUETTE COUNTY - 39

TOWN OF SPENCER - 37074
TOWN OF STETTIN - 37076
TOWN OF TEXAS - 37078
TOWN OF WAUSAU - 37080
TOWN OF WESTON - 37082
TOWN OF WIEN - 37084
VILLAGE OF ATHENS - 37102
VILLAGE OF BROKAW - 37106
VILLAGE OF EDGAR - 37121
VILLAGE OF ELDERON - 37122
VILLAGE OF FENWOOD - 37126
VILLAGE OF HATLEY - 37136
VILLAGE OF KRONENWETTER - 37145
VILLAGE OF MARATHON CITY - 37151
VILLAGE OF ROTHSCHILD - 37176
VILLAGE OF SPENCER - 37181
VILLAGE OF STRATFORD - 37182
VILLAGE OF UNITY - MAIN - 37186
VILLAGE OF WESTON - 37192
CITY OF MARINETTE - 38251
CITY OF NIAGARA - 38261
CITY OF PESHTIGO - 38271
TOWN OF AMBERG - 38002
TOWN OF ATHELSTANE - 38004
TOWN OF BEAVER - 38006
TOWN OF BEECHER - 38008
TOWN OF DUNBAR - 38010
TOWN OF GOODMAN - 38012
TOWN OF GROVER - 38014
TOWN OF LAKE - 38016
TOWN OF MIDDLE INLET - 38018
TOWN OF NIAGARA - 38020
TOWN OF PEMBINE - 38022
TOWN OF PESHTIGO - 38024
TOWN OF PORTERFIELD - 38026
TOWN OF POUND - 38028
TOWN OF SILVER CLIFF - 38030
TOWN OF STEPHENSON - 38032
TOWN OF WAGNER - 38034
TOWN OF WAUSAUKEE - 38036
VILLAGE OF COLEMAN - 38111
VILLAGE OF CRIVITZ - 38121
VILLAGE OF POUND - 38171
VILLAGE OF WAUSAUKEE - 38191
CITY OF MONTELLO - 39251

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

161

Case 2:20-cv-01771-PP Filed 12/01/20 Page 22 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MENOMINEE COUNTY - 40
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42

TOWN OF BUFFALO - 39002
TOWN OF CRYSTAL LAKE - 39004
TOWN OF DOUGLAS - 39006
TOWN OF HARRIS - 39008
TOWN OF MECAN - 39010
TOWN OF MONTELLO - 39012
TOWN OF MOUNDVILLE - 39014
TOWN OF NESHKORO - 39016
TOWN OF NEWTON - 39018
TOWN OF OXFORD - 39020
TOWN OF PACKWAUKEE - 39022
TOWN OF SHIELDS - 39024
TOWN OF SPRINGFIELD - 39026
TOWN OF WESTFIELD - 39028
VILLAGE OF ENDEAVOR - 39121
VILLAGE OF NESHKORO - 39161
VILLAGE OF OXFORD - 39165
VILLAGE OF WESTFIELD - 39191
TOWN OF MENOMINEE - 40001
CITY OF CUDAHY - 41211
CITY OF FRANKLIN - 41226
CITY OF GLENDALE - 41231
CITY OF GREENFIELD - 41236
CITY OF MILWAUKEE - MAIN - 41251
CITY OF OAK CREEK - 41265
CITY OF SOUTH MILWAUKEE - 41282
CITY OF ST. FRANCIS - 41281
CITY OF WAUWATOSA - 41291
CITY OF WEST ALLIS - 41292
VILLAGE OF BAYSIDE - MAIN - 41106
VILLAGE OF BROWN DEER - 41107
VILLAGE OF FOX POINT - 41126
VILLAGE OF GREENDALE - 41131
VILLAGE OF HALES CORNERS - 41136
VILLAGE OF RIVER HILLS - 41176
VILLAGE OF SHOREWOOD - 41181
VILLAGE OF WEST MILWAUKEE - 41191
VILLAGE OF WHITEFISH BAY - 41192
CITY OF SPARTA - 42281
CITY OF TOMAH - 42286
TOWN OF ADRIAN - 42002
TOWN OF ANGELO - 42004
TOWN OF BYRON - 42006
TOWN OF CLIFTON - 42008
TOWN OF GLENDALE - 42010

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200/ES&S DS850
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK/ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK/ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

162

Case 2:20-cv-01771-PP Filed 12/01/20 Page 23 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43

TOWN OF GRANT - 42012
TOWN OF GREENFIELD - 42014
TOWN OF JEFFERSON - 42016
TOWN OF LA GRANGE - 42020
TOWN OF LAFAYETTE - 42018
TOWN OF LEON - 42022
TOWN OF LINCOLN - 42024
TOWN OF LITTLE FALLS - 42026
TOWN OF NEW LYME - 42028
TOWN OF OAKDALE - 42030
TOWN OF PORTLAND - 42032
TOWN OF RIDGEVILLE - 42034
TOWN OF SCOTT - 42036
TOWN OF SHELDON - 42038
TOWN OF SPARTA - 42040
TOWN OF TOMAH - 42042
TOWN OF WELLINGTON - 42044
TOWN OF WELLS - 42046
TOWN OF WILTON - 42048
VILLAGE OF CASHTON - 42111
VILLAGE OF KENDALL - 42141
VILLAGE OF MELVINA - 42151
VILLAGE OF NORWALK - 42161
VILLAGE OF OAKDALE - 42165
VILLAGE OF WARRENS - 42185
VILLAGE OF WILTON - 42191
VILLAGE OF WYEVILLE - 42192
CITY OF GILLETT - 43231
CITY OF OCONTO - 43265
CITY OF OCONTO FALLS - 43266
TOWN OF ABRAMS - 43002
TOWN OF BAGLEY - 43006
TOWN OF BRAZEAU - 43008
TOWN OF BREED - 43010
TOWN OF CHASE - 43012
TOWN OF DOTY - 43014
TOWN OF GILLETT - 43016
TOWN OF HOW - 43018
TOWN OF LAKEWOOD - 43019
TOWN OF LENA - 43020
TOWN OF LITTLE RIVER - 43022
TOWN OF LITTLE SUAMICO - 43024
TOWN OF MAPLE VALLEY - 43026
TOWN OF MORGAN - 43028
TOWN OF MOUNTAIN - 43029

None
None
None
Sequoia Voting - Optech Insight
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

163

Case 2:20-cv-01771-PP Filed 12/01/20 Page 24 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45

TOWN OF OCONTO - 43030
TOWN OF OCONTO FALLS - 43032
TOWN OF PENSAUKEE - 43034
TOWN OF RIVERVIEW - 43036
TOWN OF SPRUCE - 43038
TOWN OF STILES - 43040
TOWN OF TOWNSEND - 43042
TOWN OF UNDERHILL - 43044
VILLAGE OF LENA - 43146
VILLAGE OF SURING - 43181
CITY OF RHINELANDER - 44276
TOWN OF CASSIAN - 44002
TOWN OF CRESCENT - 44004
TOWN OF ENTERPRISE - 44006
TOWN OF HAZELHURST - 44008
TOWN OF LAKE TOMAHAWK - 44010
TOWN OF LITTLE RICE - 44012
TOWN OF LYNNE - 44014
TOWN OF MINOCQUA - 44016
TOWN OF MONICO - 44018
TOWN OF NEWBOLD - 44020
TOWN OF NOKOMIS - 44022
TOWN OF PELICAN - 44024
TOWN OF PIEHL - 44026
TOWN OF PINE LAKE - 44028
TOWN OF SCHOEPKE - 44030
TOWN OF STELLA - 44032
TOWN OF SUGAR CAMP - 44034
TOWN OF THREE LAKES - 44036
TOWN OF WOODBORO - 44038
TOWN OF WOODRUFF - 44040
CITY OF APPLETON - MAIN - 45201
CITY OF KAUKAUNA - MAIN - 45241
CITY OF SEYMOUR - 45281
TOWN OF BLACK CREEK - 45002
TOWN OF BOVINA - 45004
TOWN OF BUCHANAN - 45006
TOWN OF CENTER - 45008
TOWN OF CICERO - 45010
TOWN OF DALE - 45012
TOWN OF DEER CREEK - 45014
TOWN OF ELLINGTON - 45016
TOWN OF FREEDOM - 45018
TOWN OF GRAND CHUTE - 45020
TOWN OF GREENVILLE - 45022

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

164

Case 2:20-cv-01771-PP Filed 12/01/20 Page 25 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PIERCE COUNTY - 48

TOWN OF HORTONIA - 45024
TOWN OF KAUKAUNA - 45026
TOWN OF LIBERTY - 45028
TOWN OF MAINE - 45030
TOWN OF MAPLE CREEK - 45032
TOWN OF ONEIDA - 45034
TOWN OF OSBORN - 45036
TOWN OF SEYMOUR - 45038
TOWN OF VANDENBROEK - 45040
VILLAGE OF BEAR CREEK - 45106
VILLAGE OF BLACK CREEK - 45107
VILLAGE OF COMBINED LOCKS - 45111
VILLAGE OF HORTONVILLE - 45136
VILLAGE OF KIMBERLY - 45141
VILLAGE OF LITTLE CHUTE - 45146
VILLAGE OF NICHOLS - 45155
VILLAGE OF SHIOCTON - 45181
CITY OF CEDARBURG - 46211
CITY OF MEQUON - 46255
CITY OF PORT WASHINGTON - 46271
TOWN OF BELGIUM - 46002
TOWN OF CEDARBURG - 46004
TOWN OF FREDONIA - 46006
TOWN OF GRAFTON - 46008
TOWN OF PORT WASHINGTON - 46012
TOWN OF SAUKVILLE - 46014
VILLAGE OF BAYSIDE - 41106
VILLAGE OF BELGIUM - 46106
VILLAGE OF FREDONIA - 46126
VILLAGE OF GRAFTON - 46131
VILLAGE OF NEWBURG - 67161
VILLAGE OF SAUKVILLE - 46181
VILLAGE OF THIENSVILLE - 46186
CITY OF DURAND - 47216
TOWN OF ALBANY - 47002
TOWN OF DURAND - 47004
TOWN OF FRANKFORT - 47006
TOWN OF LIMA - 47008
TOWN OF PEPIN - 47010
TOWN OF STOCKHOLM - 47012
TOWN OF WATERVILLE - 47014
TOWN OF WAUBEEK - 47016
VILLAGE OF PEPIN - 47171
VILLAGE OF STOCKHOLM - 47181
CITY OF PRESCOTT - 48271

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote

165

Case 2:20-cv-01771-PP Filed 12/01/20 Page 26 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49

CITY OF RIVER FALLS - MAIN - 48276
TOWN OF CLIFTON - 48002
TOWN OF DIAMOND BLUFF - 48004
TOWN OF EL PASO - 48008
TOWN OF ELLSWORTH - 48006
TOWN OF GILMAN - 48010
TOWN OF HARTLAND - 48012
TOWN OF ISABELLE - 48014
TOWN OF MAIDEN ROCK - 48016
TOWN OF MARTELL - 48018
TOWN OF OAK GROVE - 48020
TOWN OF RIVER FALLS - 48022
TOWN OF ROCK ELM - 48024
TOWN OF SALEM - 48026
TOWN OF SPRING LAKE - 48028
TOWN OF TRENTON - 48030
TOWN OF TRIMBELLE - 48032
TOWN OF UNION - 48034
VILLAGE OF BAY CITY - 48106
VILLAGE OF ELLSWORTH - 48121
VILLAGE OF ELMWOOD - 48122
VILLAGE OF MAIDEN ROCK - 48151
VILLAGE OF PLUM CITY - 48171
VILLAGE OF SPRING VALLEY - MAIN - 48181
CITY OF AMERY - 49201
CITY OF ST. CROIX FALLS - 49281
TOWN OF ALDEN - 49002
TOWN OF APPLE RIVER - 49004
TOWN OF BALSAM LAKE - 49006
TOWN OF BEAVER - 49008
TOWN OF BLACK BROOK - 49010
TOWN OF BONE LAKE - 49012
TOWN OF CLAM FALLS - 49014
TOWN OF CLAYTON - 49016
TOWN OF CLEAR LAKE - 49018
TOWN OF EUREKA - 49020
TOWN OF FARMINGTON - 49022
TOWN OF GARFIELD - 49024
TOWN OF GEORGETOWN - 49026
TOWN OF JOHNSTOWN - 49028
TOWN OF LAKETOWN - 49030
TOWN OF LINCOLN - 49032
TOWN OF LORAIN - 49034
TOWN OF LUCK - 49036
TOWN OF MCKINLEY - 49038

ES&S DS200
None
None
ES&S DS200
Sequoia Voting - Optech Insight
None
ES&S DS200
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
ES&S DS200
ES&S DS200
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None

ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

166

Case 2:20-cv-01771-PP Filed 12/01/20 Page 27 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51

TOWN OF MILLTOWN - 49040
TOWN OF OSCEOLA - 49042
TOWN OF ST. CROIX FALLS - 49044
TOWN OF STERLING - 49046
TOWN OF WEST SWEDEN - 49048
VILLAGE OF BALSAM LAKE - 49106
VILLAGE OF CENTURIA - 49111
VILLAGE OF CLAYTON - 49112
VILLAGE OF CLEAR LAKE - 49113
VILLAGE OF DRESSER - 49116
VILLAGE OF FREDERIC - 49126
VILLAGE OF LUCK - 49146
VILLAGE OF MILLTOWN - 49151
VILLAGE OF OSCEOLA - 49165
CITY OF STEVENS POINT - 50281
TOWN OF ALBAN - 50002
TOWN OF ALMOND - 50004
TOWN OF AMHERST - 50006
TOWN OF BELMONT - 50008
TOWN OF BUENA VISTA - 50010
TOWN OF CARSON - 50012
TOWN OF DEWEY - 50014
TOWN OF EAU PLEINE - 50016
TOWN OF GRANT - 50018
TOWN OF HULL - 50020
TOWN OF LANARK - 50022
TOWN OF LINWOOD - 50024
TOWN OF NEW HOPE - 50026
TOWN OF PINE GROVE - 50028
TOWN OF PLOVER - 50030
TOWN OF SHARON - 50032
TOWN OF STOCKTON - 50034
VILLAGE OF ALMOND - 50101
VILLAGE OF AMHERST - 50102
VILLAGE OF AMHERST JUNCTION - 50103
VILLAGE OF JUNCTION CITY - 50141
VILLAGE OF NELSONVILLE - 50161
VILLAGE OF PARK RIDGE - 50171
VILLAGE OF PLOVER - 50173
VILLAGE OF ROSHOLT - 50176
VILLAGE OF WHITING - 50191
CITY OF PARK FALLS - 51271
CITY OF PHILLIPS - 51272
TOWN OF CATAWBA - 51002
TOWN OF EISENSTEIN - 51004

None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
ES&S M100
ES&S DS200
ES&S DS200
None
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
None
None
None
ES&S DS200
ES&S M100
ES&S M100
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

167

Case 2:20-cv-01771-PP Filed 12/01/20 Page 28 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53

TOWN OF ELK - 51006
TOWN OF EMERY - 51008
TOWN OF FIFIELD - 51010
TOWN OF FLAMBEAU - 51012
TOWN OF GEORGETOWN - 51014
TOWN OF HACKETT - 51016
TOWN OF HARMONY - 51018
TOWN OF HILL - 51020
TOWN OF KENNAN - 51022
TOWN OF KNOX - 51024
TOWN OF LAKE - 51026
TOWN OF OGEMA - 51028
TOWN OF PRENTICE - 51030
TOWN OF SPIRIT - 51032
TOWN OF WORCESTER - 51034
VILLAGE OF CATAWBA - 51111
VILLAGE OF KENNAN - 51141
VILLAGE OF PRENTICE - 51171
CITY OF BURLINGTON - MAIN - 52206
CITY OF RACINE - 52276
TOWN OF BURLINGTON - 52002
TOWN OF DOVER - 52006
TOWN OF NORWAY - 52010
TOWN OF RAYMOND - 52012
TOWN OF WATERFORD - 52016
TOWN OF YORKVILLE - 52018
VILLAGE OF CALEDONIA - 52104
VILLAGE OF ELMWOOD PARK - 52121
VILLAGE OF MOUNT PLEASANT - 52151
VILLAGE OF NORTH BAY - 52161
VILLAGE OF ROCHESTER - 52176
VILLAGE OF STURTEVANT - 52181
VILLAGE OF UNION GROVE - 52186
VILLAGE OF WATERFORD - 52191
VILLAGE OF WIND POINT - 52192
VILLAGE OF YORKVILLE - 52194
CITY OF RICHLAND CENTER - 53276
TOWN OF AKAN - 53002
TOWN OF BLOOM - 53004
TOWN OF BUENA VISTA - 53006
TOWN OF DAYTON - 53008
TOWN OF EAGLE - 53010
TOWN OF FOREST - 53012
TOWN OF HENRIETTA - 53014
TOWN OF ITHACA - 53016

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

168

Case 2:20-cv-01771-PP Filed 12/01/20 Page 29 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55

TOWN OF MARSHALL - 53018
TOWN OF ORION - 53020
TOWN OF RICHLAND - 53022
TOWN OF RICHWOOD - 53024
TOWN OF ROCKBRIDGE - 53026
TOWN OF SYLVAN - 53028
TOWN OF WESTFORD - 53030
TOWN OF WILLOW - 53032
VILLAGE OF BOAZ - 53106
VILLAGE OF CAZENOVIA - MAIN - 53111
VILLAGE OF LONE ROCK - 53146
VILLAGE OF VIOLA - MAIN - 53186
VILLAGE OF YUBA - 53196
CITY OF BELOIT - 54206
CITY OF EDGERTON - MAIN - 54221
CITY OF EVANSVILLE - 54222
CITY OF JANESVILLE - 54241
CITY OF MILTON - 54257
TOWN OF AVON - 54002
TOWN OF BELOIT - 54004
TOWN OF BRADFORD - 54006
TOWN OF CENTER - 54008
TOWN OF CLINTON - 54010
TOWN OF FULTON - 54012
TOWN OF HARMONY - 54014
TOWN OF JANESVILLE - 54016
TOWN OF JOHNSTOWN - 54018
TOWN OF LA PRAIRIE - 54020
TOWN OF LIMA - 54022
TOWN OF MAGNOLIA - 54024
TOWN OF MILTON - 54026
TOWN OF NEWARK - 54028
TOWN OF PLYMOUTH - 54030
TOWN OF PORTER - 54032
TOWN OF ROCK - 54034
TOWN OF SPRING VALLEY - 54036
TOWN OF TURTLE - 54038
TOWN OF UNION - 54040
VILLAGE OF CLINTON - 54111
VILLAGE OF FOOTVILLE - 54126
VILLAGE OF ORFORDVILLE - 54165
CITY OF LADYSMITH - 55246
TOWN OF ATLANTA - 55002
TOWN OF BIG BEND - 55004
TOWN OF BIG FALLS - 55006

None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

169

Case 2:20-cv-01771-PP Filed 12/01/20 Page 30 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57

TOWN OF CEDAR RAPIDS - 55008
TOWN OF DEWEY - 55010
TOWN OF FLAMBEAU - 55012
TOWN OF GRANT - 55014
TOWN OF GROW - 55016
TOWN OF HAWKINS - 55018
TOWN OF HUBBARD - 55020
TOWN OF LAWRENCE - 55022
TOWN OF MARSHALL - 55024
TOWN OF MURRY - 55026
TOWN OF RICHLAND - 55028
TOWN OF RUSK - 55030
TOWN OF SOUTH FORK - 55032
TOWN OF STRICKLAND - 55034
TOWN OF STUBBS - 55036
TOWN OF THORNAPPLE - 55038
TOWN OF TRUE - 55040
TOWN OF WASHINGTON - 55042
TOWN OF WILKINSON - 55044
TOWN OF WILLARD - 55046
TOWN OF WILSON - 55048
VILLAGE OF BRUCE - 55106
VILLAGE OF CONRATH - 55111
VILLAGE OF GLEN FLORA - 55131
VILLAGE OF HAWKINS - 55136
VILLAGE OF INGRAM - 55141
VILLAGE OF SHELDON - 55181
VILLAGE OF TONY - 55186
VILLAGE OF WEYERHAEUSER - 55191
CITY OF BARABOO - 57206
CITY OF REEDSBURG - 57276
TOWN OF BARABOO - 57002
TOWN OF BEAR CREEK - 57004
TOWN OF DELLONA - 57006
TOWN OF DELTON - 57008
TOWN OF EXCELSIOR - 57010
TOWN OF FAIRFIELD - 57012
TOWN OF FRANKLIN - 57014
TOWN OF FREEDOM - 57016
TOWN OF GREENFIELD - 57018
TOWN OF HONEY CREEK - 57020
TOWN OF IRONTON - 57022
TOWN OF LA VALLE - 57024
TOWN OF MERRIMAC - 57026
TOWN OF PRAIRIE DU SAC - 57028

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

170

Case 2:20-cv-01771-PP Filed 12/01/20 Page 31 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59

TOWN OF REEDSBURG - 57030
TOWN OF SPRING GREEN - 57032
TOWN OF SUMPTER - 57034
TOWN OF TROY - 57036
TOWN OF WASHINGTON - 57038
TOWN OF WESTFIELD - 57040
TOWN OF WINFIELD - 57042
TOWN OF WOODLAND - 57044
VILLAGE OF IRONTON - 57141
VILLAGE OF LAKE DELTON - 57146
VILLAGE OF LAVALLE - 57147
VILLAGE OF LIME RIDGE - 57148
VILLAGE OF LOGANVILLE - 57149
VILLAGE OF MERRIMAC - 57151
VILLAGE OF NORTH FREEDOM - 57161
VILLAGE OF PLAIN - 57171
VILLAGE OF PRAIRIE DU SAC - 57172
VILLAGE OF ROCK SPRINGS - 57176
VILLAGE OF SAUK CITY - 57181
VILLAGE OF SPRING GREEN - 57182
VILLAGE OF WEST BARABOO - 57191
CITY OF HAYWARD - 58236
TOWN OF BASS LAKE - 58002
TOWN OF COUDERAY - 58004
TOWN OF DRAPER - 58006
TOWN OF EDGEWATER - 58008
TOWN OF HAYWARD - 58010
TOWN OF HUNTER - 58012
TOWN OF LENROOT - 58014
TOWN OF MEADOWBROOK - 58016
TOWN OF METEOR - 58018
TOWN OF OJIBWA - 58020
TOWN OF RADISSON - 58022
TOWN OF ROUND LAKE - 58024
TOWN OF SAND LAKE - 58026
TOWN OF SPIDER LAKE - 58028
TOWN OF WEIRGOR - 58030
TOWN OF WINTER - 58032
VILLAGE OF COUDERAY - 58111
VILLAGE OF EXELAND - 58121
VILLAGE OF RADISSON - 58176
VILLAGE OF WINTER - 58190
CITY OF SHAWANO - 59281
TOWN OF ALMON - 59002
TOWN OF ANGELICA - 59004

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
Sequoia Voting - Optech Insight
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

171

Case 2:20-cv-01771-PP Filed 12/01/20 Page 32 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60

TOWN OF ANIWA - 59006
TOWN OF BARTELME - 59008
TOWN OF BELLE PLAINE - 59010
TOWN OF BIRNAMWOOD - 59012
TOWN OF FAIRBANKS - 59014
TOWN OF GERMANIA - 59016
TOWN OF GRANT - 59018
TOWN OF GREEN VALLEY - 59020
TOWN OF HARTLAND - 59022
TOWN OF HERMAN - 59024
TOWN OF HUTCHINS - 59026
TOWN OF LESSOR - 59028
TOWN OF MAPLE GROVE - 59030
TOWN OF MORRIS - 59032
TOWN OF NAVARINO - 59034
TOWN OF PELLA - 59036
TOWN OF RED SPRINGS - 59038
TOWN OF RICHMOND - 59040
TOWN OF SENECA - 59042
TOWN OF WASHINGTON - 59044
TOWN OF WAUKECHON - 59046
TOWN OF WESCOTT - 59048
TOWN OF WITTENBERG - 59050
VILLAGE OF ANIWA - 59101
VILLAGE OF BIRNAMWOOD - MAIN - 59106
VILLAGE OF BONDUEL - 59107
VILLAGE OF BOWLER - 59108
VILLAGE OF CECIL - 59111
VILLAGE OF ELAND - 59121
VILLAGE OF GRESHAM - 59131
VILLAGE OF MATTOON - 59151
VILLAGE OF TIGERTON - 59186
VILLAGE OF WITTENBERG - 59191
CITY OF PLYMOUTH - 60271
CITY OF SHEBOYGAN - 60281
CITY OF SHEBOYGAN FALLS - 60282
TOWN OF GREENBUSH - 60002
TOWN OF HERMAN - 60004
TOWN OF HOLLAND - 60006
TOWN OF LIMA - 60008
TOWN OF LYNDON - 60010
TOWN OF MITCHELL - 60012
TOWN OF MOSEL - 60014
TOWN OF PLYMOUTH - 60016
TOWN OF RHINE - 60018

None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1

172

Case 2:20-cv-01771-PP Filed 12/01/20 Page 33 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56

TOWN OF RUSSELL - 60020
TOWN OF SCOTT - 60022
TOWN OF SHEBOYGAN - 60024
TOWN OF SHEBOYGAN FALLS - 60026
TOWN OF SHERMAN - 60028
TOWN OF WILSON - 60030
VILLAGE OF ADELL - 60101
VILLAGE OF CASCADE - 60111
VILLAGE OF CEDAR GROVE - 60112
VILLAGE OF ELKHART LAKE - 60121
VILLAGE OF GLENBEULAH - 60131
VILLAGE OF HOWARDS GROVE - 60135
VILLAGE OF KOHLER - 60141
VILLAGE OF OOSTBURG - 60165
VILLAGE OF RANDOM LAKE - 60176
VILLAGE OF WALDO - 60191
CITY OF GLENWOOD CITY - 56231
CITY OF HUDSON - 56236
CITY OF NEW RICHMOND - 56261
TOWN OF BALDWIN - 56002
TOWN OF CADY - 56004
TOWN OF CYLON - 56006
TOWN OF EAU GALLE - 56008
TOWN OF EMERALD - 56010
TOWN OF ERIN PRAIRIE - 56012
TOWN OF FOREST - 56014
TOWN OF GLENWOOD - 56016
TOWN OF HAMMOND - 56018
TOWN OF HUDSON - 56020
TOWN OF KINNICKINNIC - 56022
TOWN OF PLEASANT VALLEY - 56024
TOWN OF RICHMOND - 56026
TOWN OF RUSH RIVER - 56028
TOWN OF SOMERSET - 56032
TOWN OF SPRINGFIELD - 56034
TOWN OF ST. JOSEPH - 56030
TOWN OF STANTON - 56036
TOWN OF STAR PRAIRIE - 56038
TOWN OF TROY - 56040
TOWN OF WARREN - 56042
VILLAGE OF BALDWIN - 56106
VILLAGE OF DEER PARK - 56116
VILLAGE OF HAMMOND - 56136
VILLAGE OF NORTH HUDSON - 56161
VILLAGE OF ROBERTS - 56176

ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

173

Case 2:20-cv-01771-PP Filed 12/01/20 Page 34 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62

VILLAGE OF SOMERSET - 56181
VILLAGE OF STAR PRAIRIE - 56182
VILLAGE OF WILSON - 56191
VILLAGE OF WOODVILLE - 56192
CITY OF MEDFORD - 61251
TOWN OF AURORA - 61002
TOWN OF BROWNING - 61004
TOWN OF CHELSEA - 61006
TOWN OF CLEVELAND - 61008
TOWN OF DEER CREEK - 61010
TOWN OF FORD - 61012
TOWN OF GOODRICH - 61014
TOWN OF GREENWOOD - 61016
TOWN OF GROVER - 61018
TOWN OF HAMMEL - 61020
TOWN OF HOLWAY - 61022
TOWN OF JUMP RIVER - 61024
TOWN OF LITTLE BLACK - 61026
TOWN OF MAPLEHURST - 61028
TOWN OF MCKINLEY - 61030
TOWN OF MEDFORD - 61032
TOWN OF MOLITOR - 61034
TOWN OF PERSHING - 61036
TOWN OF RIB LAKE - 61038
TOWN OF ROOSEVELT - 61040
TOWN OF TAFT - 61042
TOWN OF WESTBORO - 61044
VILLAGE OF GILMAN - 61131
VILLAGE OF LUBLIN - 61146
VILLAGE OF RIB LAKE - 61176
VILLAGE OF STETSONVILLE - 61181
CITY OF ARCADIA - 62201
CITY OF BLAIR - 62206
CITY OF GALESVILLE - 62231
CITY OF INDEPENDENCE - 62241
CITY OF OSSEO - 62265
CITY OF WHITEHALL - 62291
TOWN OF ALBION - 62002
TOWN OF ARCADIA - 62004
TOWN OF BURNSIDE - 62006
TOWN OF CALEDONIA - 62008
TOWN OF CHIMNEY ROCK - 62010
TOWN OF DODGE - 62012
TOWN OF ETTRICK - 62014
TOWN OF GALE - 62016

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S M100
None
None
None
None
None
None
None
None
None
None
None
None
ES&S M100
None
None
ES&S M100
None
None
ES&S M100
None
None
ES&S M100
None
None
ES&S M100
None
Dominion Voting - ImageCast Evolution (ICE)
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

174

Case 2:20-cv-01771-PP Filed 12/01/20 Page 35 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VILAS COUNTY - 64

TOWN OF HALE - 62018
TOWN OF LINCOLN - 62020
TOWN OF PIGEON - 62022
TOWN OF PRESTON - 62024
TOWN OF SUMNER - 62026
TOWN OF TREMPEALEAU - 62028
TOWN OF UNITY - 62030
VILLAGE OF ELEVA - 62121
VILLAGE OF ETTRICK - 62122
VILLAGE OF PIGEON FALLS - 62173
VILLAGE OF STRUM - 62181
VILLAGE OF TREMPEALEAU - 62186
CITY OF HILLSBORO - 63236
CITY OF VIROQUA - 63286
CITY OF WESTBY - 63291
TOWN OF BERGEN - 63002
TOWN OF CHRISTIANA - 63004
TOWN OF CLINTON - 63006
TOWN OF COON - 63008
TOWN OF FOREST - 63010
TOWN OF FRANKLIN - 63012
TOWN OF GENOA - 63014
TOWN OF GREENWOOD - 63016
TOWN OF HAMBURG - 63018
TOWN OF HARMONY - 63020
TOWN OF HILLSBORO - 63022
TOWN OF JEFFERSON - 63024
TOWN OF KICKAPOO - 63026
TOWN OF LIBERTY - 63028
TOWN OF STARK - 63030
TOWN OF STERLING - 63032
TOWN OF UNION - 63034
TOWN OF VIROQUA - 63036
TOWN OF WEBSTER - 63038
TOWN OF WHEATLAND - 63040
TOWN OF WHITESTOWN - 63042
VILLAGE OF CHASEBURG - 63111
VILLAGE OF COON VALLEY - 63112
VILLAGE OF DE SOTO - MAIN - 63116
VILLAGE OF GENOA - 63131
VILLAGE OF LA FARGE - 63146
VILLAGE OF ONTARIO - 63165
VILLAGE OF READSTOWN - 63176
VILLAGE OF STODDARD - 63181
CITY OF EAGLE RIVER - 64221

None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)

175

Case 2:20-cv-01771-PP Filed 12/01/20 Page 36 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66

TOWN OF ARBOR VITAE - 64002
TOWN OF BOULDER JUNCTION - 64004
TOWN OF CLOVERLAND - 64006
TOWN OF CONOVER - 64008
TOWN OF LAC DU FLAMBEAU - 64010
TOWN OF LAND O-LAKES - 64012
TOWN OF LINCOLN - 64014
TOWN OF MANITOWISH WATERS - 64016
TOWN OF PHELPS - 64018
TOWN OF PLUM LAKE - 64020
TOWN OF PRESQUE ISLE - 64022
TOWN OF ST. GERMAIN - 64024
TOWN OF WASHINGTON - 64026
TOWN OF WINCHESTER - 64028
CITY OF DELAVAN - 65216
CITY OF ELKHORN - 65221
CITY OF LAKE GENEVA - 65246
CITY OF WHITEWATER - MAIN - 65291
TOWN OF BLOOMFIELD - 65002
TOWN OF DARIEN - 65004
TOWN OF DELAVAN - 65006
TOWN OF EAST TROY - 65008
TOWN OF GENEVA - 65010
TOWN OF LA GRANGE - 65014
TOWN OF LAFAYETTE - 65012
TOWN OF LINN - 65016
TOWN OF LYONS - 65018
TOWN OF RICHMOND - 65020
TOWN OF SHARON - 65022
TOWN OF SPRING PRAIRIE - 65024
TOWN OF SUGAR CREEK - 65026
TOWN OF TROY - 65028
TOWN OF WALWORTH - 65030
TOWN OF WHITEWATER - 65032
VILLAGE OF BLOOMFIELD - 65115
VILLAGE OF DARIEN - 65116
VILLAGE OF EAST TROY - 65121
VILLAGE OF FONTANA - 65126
VILLAGE OF GENOA CITY - MAIN - 65131
VILLAGE OF SHARON - 65181
VILLAGE OF WALWORTH - 65191
VILLAGE OF WILLIAMS BAY - 65192
CITY OF SHELL LAKE - 66282
CITY OF SPOONER - 66281
TOWN OF BARRONETT - 66002

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Sequoia Voting - Optech Insight
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

176

Case 2:20-cv-01771-PP Filed 12/01/20 Page 37 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68

TOWN OF BASHAW - 66004
TOWN OF BASS LAKE - 66006
TOWN OF BEAVER BROOK - 66008
TOWN OF BIRCHWOOD - 66010
TOWN OF BROOKLYN - 66012
TOWN OF CASEY - 66014
TOWN OF CHICOG - 66016
TOWN OF CRYSTAL - 66018
TOWN OF EVERGREEN - 66020
TOWN OF FROG CREEK - 66022
TOWN OF GULL LAKE - 66024
TOWN OF LONG LAKE - 66026
TOWN OF MADGE - 66028
TOWN OF MINONG - 66030
TOWN OF SARONA - 66032
TOWN OF SPOONER - 66034
TOWN OF SPRINGBROOK - 66036
TOWN OF STINNETT - 66038
TOWN OF STONE LAKE - 66040
TOWN OF TREGO - 66042
VILLAGE OF BIRCHWOOD - 66106
VILLAGE OF MINONG - 66151
CITY OF HARTFORD - MAIN - 67236
CITY OF WEST BEND - 67291
TOWN OF ADDISON - 67002
TOWN OF BARTON - 67004
TOWN OF ERIN - 67006
TOWN OF FARMINGTON - 67008
TOWN OF GERMANTOWN - 67010
TOWN OF HARTFORD - 67012
TOWN OF JACKSON - 67014
TOWN OF KEWASKUM - 67016
TOWN OF POLK - 67018
TOWN OF TRENTON - 67022
TOWN OF WAYNE - 67024
TOWN OF WEST BEND - 67026
VILLAGE OF GERMANTOWN - 67131
VILLAGE OF JACKSON - 67141
VILLAGE OF KEWASKUM - MAIN - 67142
VILLAGE OF NEWBURG - MAIN - 67161
VILLAGE OF RICHFIELD - 67166
VILLAGE OF SLINGER - 67181
CITY OF BROOKFIELD - 68206
CITY OF DELAFIELD - 68216
CITY OF MUSKEGO - 68251

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

177

Case 2:20-cv-01771-PP Filed 12/01/20 Page 38 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69

CITY OF NEW BERLIN - 68261
CITY OF OCONOMOWOC - 68265
CITY OF PEWAUKEE - 68270
CITY OF WAUKESHA - 68291
TOWN OF BROOKFIELD - 68002
TOWN OF DELAFIELD - 68004
TOWN OF EAGLE - 68006
TOWN OF GENESEE - 68008
TOWN OF LISBON - 68010
TOWN OF MERTON - 68014
TOWN OF MUKWONAGO - 68016
TOWN OF OCONOMOWOC - 68022
TOWN OF OTTAWA - 68024
TOWN OF VERNON - 68030
TOWN OF WAUKESHA - 68032
VILLAGE OF BIG BEND - 68106
VILLAGE OF BUTLER - 68107
VILLAGE OF CHENEQUA - 68111
VILLAGE OF DOUSMAN - 68116
VILLAGE OF EAGLE - 68121
VILLAGE OF ELM GROVE - 68122
VILLAGE OF HARTLAND - 68136
VILLAGE OF LAC LA BELLE - MAIN - 68146
VILLAGE OF LANNON - 68147
VILLAGE OF MENOMONEE FALLS - 68151
VILLAGE OF MERTON - 68152
VILLAGE OF MUKWONAGO - MAIN - 68153
VILLAGE OF NASHOTAH - 68158
VILLAGE OF NORTH PRAIRIE - 68161
VILLAGE OF OCONOMOWOC LAKE - 68166
VILLAGE OF PEWAUKEE - 68171
VILLAGE OF SUMMIT - 68172
VILLAGE OF SUSSEX - 68181
VILLAGE OF WALES - 68191
CITY OF CLINTONVILLE - 69211
CITY OF MANAWA - 69251
CITY OF MARION - MAIN - 69252
CITY OF NEW LONDON - MAIN - 69261
CITY OF WAUPACA - 69291
CITY OF WEYAUWEGA - 69292
TOWN OF BEAR CREEK - 69002
TOWN OF CALEDONIA - 69004
TOWN OF DAYTON - 69006
TOWN OF DUPONT - 69008
TOWN OF FARMINGTON - 69010

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
None
Sequoia Voting - Optech Insight
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
None
None
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

178

Case 2:20-cv-01771-PP Filed 12/01/20 Page 39 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70

TOWN OF FREMONT - 69012
TOWN OF HARRISON - 69014
TOWN OF HELVETIA - 69016
TOWN OF IOLA - 69018
TOWN OF LARRABEE - 69020
TOWN OF LEBANON - 69022
TOWN OF LIND - 69024
TOWN OF LITTLE WOLF - 69026
TOWN OF MATTESON - 69028
TOWN OF MUKWA - 69030
TOWN OF ROYALTON - 69032
TOWN OF SAINT LAWRENCE - 69034
TOWN OF SCANDINAVIA - 69036
TOWN OF UNION - 69038
TOWN OF WAUPACA - 69040
TOWN OF WEYAUWEGA - 69042
TOWN OF WYOMING - 69044
VILLAGE OF BIG FALLS - 69106
VILLAGE OF EMBARRASS - 69121
VILLAGE OF FREMONT - 69126
VILLAGE OF IOLA - 69141
VILLAGE OF OGDENSBURG - 69165
VILLAGE OF SCANDINAVIA - 69181
CITY OF WAUTOMA - 70291
TOWN OF AURORA - 70002
TOWN OF BLOOMFIELD - 70004
TOWN OF COLOMA - 70006
TOWN OF DAKOTA - 70008
TOWN OF DEERFIELD - 70010
TOWN OF HANCOCK - 70012
TOWN OF LEON - 70014
TOWN OF MARION - 70016
TOWN OF MOUNT MORRIS - 70018
TOWN OF OASIS - 70020
TOWN OF PLAINFIELD - 70022
TOWN OF POY SIPPI - 70024
TOWN OF RICHFORD - 70026
TOWN OF ROSE - 70028
TOWN OF SAXEVILLE - 70030
TOWN OF SPRINGWATER - 70032
TOWN OF WARREN - 70034
TOWN OF WAUTOMA - 70036
VILLAGE OF COLOMA - 70111
VILLAGE OF HANCOCK - 70136
VILLAGE OF LOHRVILLE - 70146

None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

179

Case 2:20-cv-01771-PP Filed 12/01/20 Page 40 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72

VILLAGE OF PLAINFIELD - 70171
VILLAGE OF REDGRANITE - 70176
VILLAGE OF WILD ROSE - 70191
CITY OF MENASHA - MAIN - 71251
CITY OF NEENAH - 71261
CITY OF OMRO - 71265
CITY OF OSHKOSH - 71266
TOWN OF ALGOMA - 71002
TOWN OF BLACK WOLF - 71004
TOWN OF CLAYTON - 71006
TOWN OF MENASHA - 71008
TOWN OF NEENAH - 71010
TOWN OF NEKIMI - 71012
TOWN OF NEPEUSKUN - 71014
TOWN OF OMRO - 71016
TOWN OF OSHKOSH - 71018
TOWN OF POYGAN - 71020
TOWN OF RUSHFORD - 71022
TOWN OF UTICA - 71024
TOWN OF VINLAND - 71026
TOWN OF WINCHESTER - 71028
TOWN OF WINNECONNE - 71030
TOWN OF WOLF RIVER - 71032
VILLAGE OF FOX CROSSING - 71121
VILLAGE OF WINNECONNE - 71191
CITY OF MARSHFIELD - MAIN - 72251
CITY OF NEKOOSA - 72261
CITY OF PITTSVILLE - 72271
CITY OF WISCONSIN RAPIDS - 72291
TOWN OF ARPIN - 72002
TOWN OF AUBURNDALE - 72004
TOWN OF CAMERON - 72006
TOWN OF CARY - 72008
TOWN OF CRANMOOR - 72010
TOWN OF DEXTER - 72012
TOWN OF GRAND RAPIDS - 72014
TOWN OF HANSEN - 72016
TOWN OF HILES - 72018
TOWN OF LINCOLN - 72020
TOWN OF MARSHFIELD - 72022
TOWN OF MILLADORE - 72024
TOWN OF PORT EDWARDS - 72026
TOWN OF REMINGTON - 72028
TOWN OF RICHFIELD - 72030
TOWN OF ROCK - 72032

None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

180

Case 2:20-cv-01771-PP Filed 12/01/20 Page 41 of 42 Document 1-12

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72

TOWN OF RUDOLPH - 72034
TOWN OF SARATOGA - 72036
TOWN OF SENECA - 72038
TOWN OF SHERRY - 72040
TOWN OF SIGEL - 72042
TOWN OF WOOD - 72044
VILLAGE OF ARPIN - 72100
VILLAGE OF AUBURNDALE - 72101
VILLAGE OF BIRON - 72106
VILLAGE OF HEWITT - 72122
VILLAGE OF MILLADORE - MAIN - 72151
VILLAGE OF PORT EDWARDS - 72171
VILLAGE OF RUDOLPH - 72178
VILLAGE OF VESPER - 72186

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
ES&S DS200
ES&S DS200
ES&S DS200

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

181

Case 2:20-cv-01771-PP Filed 12/01/20 Page 42 of 42 Document 1-12

182

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 6 Document 1-13

183

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 6 Document 1-13

184

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 6 Document 1-13

185

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 6 Document 1-13

186

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 6 Document 1-13

187

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 6 Document 1-13

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 1 of 48

E
X
H
I
B
I
T

188

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 48 Document 1-14

2

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 2 of 48

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONNA CURLING, ET AL.,
Plaintiffs,
vs.
BRAD RAFFENSPERGER,
ET AL.,
Defendants.

)
)
)
)
)
)
)
)
)
)

CIVIL ACTION
FILE NO. 1:17-cv-2989-AT

DECLARATION OF HARRI HURSTI
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the
foregoing is true and correct.
1.

My name is Harri Hursti. I am over the age of 21 and competent to

give this testimony. The facts stated in this declaration are based on my personal
knowledge, unless stated otherwise.
2.

My background and qualifications in voting system cybersecurity are

set forth in my December 16, 2019 declaration. (Doc. 680-1, pages 37 et seq). I
stand by everything in that declaration and in my August 21, 2020 declaration.
(Doc. 800-2).

1

189

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 3 of 48

3.

I am also an expert in ballot scanning because of extensive

background in digital imaging prior by work researching election systems. In
addition, in 2005 I started an open source project for scanning and auditing paper
ballots from images. As a result, I am familiar with different scanner types, how
scanner settings and image processing features change the images, and how file
format choices affect the quality and accuracy of the ballots.
4.

I am engaged as an expert in this case by Coalition for Good

Governance.
5.

In developing this declaration and opinion, I visited Atlanta to observe

certain operations of the June 9, 2020 statewide primary, and the August 11 runoff.
During the June 9 election, I was an authorized poll watcher in some locations and
was a public observer in others. On August 11, I was authorized as an expert
inspecting and observing under the Coalition for Good Governance’s Rule 34
Inspection request in certain polling places and the Fulton County Election
Preparation Center. As I will explain below in this declaration, my extensive
experience in the area of voting system security and my observations of these
elections lead to additional conclusions beyond those in my December 16, 2019
declaration. Specifically:

2

190

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 4 of 48

a) the scanner and tabulation software settings being employed to determine
which votes to count on hand marked paper ballots are likely causing
clearly intentioned votes not to be counted;
b) the voting system is being operated in Fulton County in a manner that

escalates the security risk to an extreme level; and
c) voters are not reviewing their BMD printed ballots, which causes BMD
generated results to be un-auditable due to the untrustworthy audit trail.
Polling Place Observations
6.

Election observation on Peachtree Christian Church. The ballot

marking devices were installed so that 4 out of 8 touchscreen devices were clearly
visible from the pollbook check in desk. Voter’s selections could be effortlessly
seen from over 50 ft away.
7.

Over period of about 45 minutes, I only observed one voter who

appeared to be studying the ballot after picking it up from the printer before casting
it in the scanner. When voters do not fully verify their ballot prior to casting, the
ballots cannot be considered a reliable auditable record.
8.

The scanner would reject some ballots and then accept them after they

were rotated to a different orientation. I noted that the scanner would vary in the
amount of time that it took to accept or reject a ballot. The delay varied between 3
3

191

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 5 of 48

and 5 seconds from the moment the scanner takes the ballot until the scanner either
accepts the ballot or rejects it. This kind of behavior is normal on general purpose
operating systems multitasking between multiple applications, but a voting system
component should be running only a single application without outside
dependencies causing variable execution times.
9.

Further research is necessary to determine the cause of the unexpected

scanning delays. A system that is dedicated to performing one task repeatedly
should not have unexplained variation in processing time. As security researcher,

we are always suspicious about any unexpected variable delays, as those are
common telltale signs of many issues, including a possibility of unauthorized
code being executed. So, in my opinion changes of behaviors between
supposedly identical machines performing identical tasks should always be
investigated.
When ballots are the same and are produced by a ballot marking device,
there should be no time difference whatsoever in processing the bar codes.
Variations in time can be the result of many things - one of them is that the
scanner encounters an error reading the bar code and needs to utilize error
correcting algorithms to recover from that error. Further investigation is
4

192

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 6 of 48

necessary to determine the root cause of these delays, the potential impact of the
error correcting algorithms if those are found to be the cause, and whether the
delay has any impact upon the vote.
10.

Election observation in Central Park Recreation Center. The Poll

place manager told me that no Dominion trained technician had reported on
location to help them that morning.
11.

The ballot marking devices were originally installed in a way that

voter privacy was not protected, as anyone could observe across the room how
people are voting on about 2/3 devices.
12.

The ballot scanner took between 4 and 6 seconds to accept the ballot.

I observed only one ballot being rejected.
13.

Generally, voters did not inspect the ballots after taking it from the

printer and casting it into the scanner.
14.

Election observation in Fanplex location. Samantha Whitley and

Harrison Thweatt were poll watchers at the Fanplex polling location. They
contacted me at approximately 9:10am about problems they were observing with
the operation of the BMDs and Poll Pads and asked me to come to help them

5

193

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 7 of 48

understand the anomalies they were observing. I arrived at FanPlex at
approximately 9:30am.
15.

I observed that the ballot scanner located by a glass wall whereby

standing outside of the building observe the scanning, would take between 6 and 7
seconds to either accept or reject the ballot.
16.

For reasons unknown, on multiple machines, while voters were

attempting to vote, the ballot marking devices sometimes printed “test” ballots. I
was not able to take a picture of the ballot from the designated observation area,
but I overheard the poll worker by the scanner explaining the issue to a voter which
was sent back to the Ballot-Marking Device to pick up another ballot from the
printer tray. Test ballots are intended to be used to test the system but without
being counted by the system during an election. The ballot scanner in election
settings rejects test ballots, as the scanners at FanPlex did. This caused confusion
as the voters needed to return to the ballot-marking device to retrieve the actual
ballot. Some voters returned the test ballot into the printer tray, potentially
confusing the next voter. Had voters been reviewing the ballots at all before taking
them to the scanner, they would have noticed the “Test Ballot” text on the ballot. I
observed no voter really questioning a poll worker why a “Test” ballot was printed
in the first place.
6

194

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 8 of 48

17.

Obviously, during the election day, the ballot marking device should

not be processing or printing any ballot other than the one the voter is voting.
While the cause of the improper printing of ballots should be examined, the fact
that this was happening at all is likely indicative of a wrong configuration given to
the BMD, which in my professional opinion raises another question: Why didn’t
the device print only test ballots? And how can the device change its behavior in
the middle of the election day? Is the incorrect configuration originating from the
Electronic Pollbook System? What are the implications for the reliability of the
printed ballot and the QR code being counted?
18.

Election observation Park Tavern. The scanner acceptance delay did

not vary as it had in previous locations and was consistently about 5 seconds from
the moment the scanner takes the ballot, to the moment the scanner either accepts
the ballot or rejects it. The variation between scanners at different locations is
concerning because these are identical physical devices and should not behave
differently while performing the identical task of scanning a ballot.
19.

The vast majority of voters at Park Tavern did not inspect the ballots

after taking them from the printer and before casting them in the scanner.

7

195

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 9 of 48

Fulton Tabulation Center Operation-Election Night, August 11, 2020
20.

In Fulton County Election Preparation Center (“EPC”) on election

night I reviewed certain operations as authorized by Rule 34 inspection.
21.

I was permitted to view the operations of the upload of the memory

devices coming in from the precincts to the Dominion Election Management
System (“EMS”) server. The agreement with Fulton County was that I could
review only for a limited period of time; therefore, I did not review the entire
evening’s process. Also, Dominion employees asked me to move away from the
monitors containing the information and messages from the upload process and
error messages, limiting my ability to give a more detailed report with
documentation and photographs of the screens. However, my vantage point was
more than adequate to observe that system problems were recurring and the
Dominion technicians operating the system were struggling with the upload
process.
22.

It is my understanding the same EMS equipment and software had

been used in Fulton County’s June 9, 2020 primary election.
23.

It is my understanding that the Dominion technician (“Dominic”)

charged with operating the EMS server for Fulton County had been performing

8

196

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 10 of 48

these duties at Fulton County for several months, including during the June 9
primary.
24.

During my August 11 visit, and a follow-up visit on August 17, I

observed that the EMS server was operated almost exclusively by Dominion
personnel, with little interaction with EPC management, even when problems were
encountered. In my conversations with Derrick Gilstrap and other Fulton County
Elections Department EPC personnel, they professed to have limited knowledge of
or control over the EMS server and its operations.
25.

Outsourcing the operation of the voting system components directly to

the voting system vendors’ personnel is highly unusual in my experience and of
grave concern from a security and conflict of interest perspective. Voting system
vendors’ personnel have a conflict of interest because they are not inclined to
report on, or address, defects in the voting systems. The dangers this poses is
aggravated by the absence of any trained County personnel to oversee and
supervise the process.
26.

In my professional opinion, the role played by Dominion personnel in

Fulton County, and other counties with similar arrangements, should be considered
an elevated risk factor when evaluating the security risks of Georgia’s voting
system.
9

197

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 11 of 48

27.

Based on my observations on August 11 and August 17, Dell

computers running the EMS that is used to process Fulton county votes appeared
not to have been hardened.
28.

In essence, hardening is the process of securing a system by reducing

its surface of vulnerability, which is larger when a system performs more
functions; in principle it is to the reduce the general purpose system into a singlefunction system which is more secure than a multipurpose one. Reducing available
ways of attack typically includes changing default passwords, the removal of
unnecessary software, unnecessary usernames or logins, grant accounts and
programs with the minimum level of privileges needed for the tasks and create
separate accounts for privileged operations as needed, and the disabling or removal
of unnecessary services.
29.

Computers performing any sensitive and mission critical tasks such as

elections should unquestionably be hardened. Voting system are designated by the
Department of Homeland Security as part of the critical infrastructure and certainly
fall into the category of devices which should be hardened as the most fundamental
security measure. In my experience, it is unusual, and I find it unacceptable for an
EMS server not to have been hardened prior to installation.

10

198

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 12 of 48

30.

The Operating System version in the Dominion Election Management

computer, which is positioned into the rack and by usage pattern appears to be the
main computer, is Windows 10 Pro 10.0.14393. This version is also known as the
Anniversary Update version 1607 and it was released August 2, 2016. Exhibit A is
a true and correct copy of a photograph that I took of this computer.
31.

When a voting system is certified by the EAC, the Operating System

is specifically defined, as Windows 10 Pro was for the Dominion 5.5-A system.
Unlike consumer computers, voting systems do not and should not receive
automatic “upgrades” to newer versions of the Operating System. without
undergoing tests for conflicts with the new operating system software.
32.

That computer and other computers used in Georgia’s system for vote

processing appear to have home/small business companion software packages
included. Exhibits B and C are true and correct copies of photographs that I took
of the computer located in the rack and the computer located closest to the rack on
the table to the right. The Start Menu shows a large number of game and
entertainment software icons. As stated before, one of the first procedures of
hardening is removal of all unwanted software, and removal of those game icons
and the associated games and installers alongside with all other software which is
not absolutely needed in the computer for election processing purposes would be
11

199

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 13 of 48

one of the first and most basic steps in the hardening process. In my professional
opinion, independent inquiry should be promptly made of all 159 counties to
determine if the Dominion systems statewide share this major deficiency.
33.

Furthermore, when I asked the Dominion employee Dominic assigned

to the Fulton County election server operation about the origin of the Windows
operating system, he answered that he believed that “it has been provided by the
State.”
34.

Since Georgia’s Dominion system is new, it is a reasonable

assumption that all machines in the Fulton County election network had the same
version of Windows installed. However, not only the two computers displayed
different entertainment software icons, but additionally one of the machines in
Fulton’s group of election servers had an icon of computer game called
“Homescapes” which is made by Playrix Holding Ltd., founded by Dmitry and
Igor Bukham in Vologda, Russia. Attached as Exhibit C is a true and correct copy
of a photograph that I took of the Fulton voting system computer” Client 02”. The
icon for Homescapes is shown by the arrow on Exhibit C.
35.

The Homescapes game was released in August 2017, one year after

Fulton County’s operating system release. If the Homescapes game came with the
operating system it would be unusual, because at the time of the release of
12

200

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 14 of 48

Homescapes, Microsoft had already released 3 major Microsoft Windows 10
update releases after build 14393 and before the release of that game. This calls
into question whether all Georgia Dominion system computers have the same
operating system version, or how the game has come to be having a presence in
Fulton’s Dominion voting system.
36.

Although this Dominion voting system is new to Georgia, the

Windows 10 operating system of at least the ‘main’ computer in the rack has not
been updated for 4 years and carries a wide range of well-known and publicly
disclosed vulnerabilities. At the time of this writing, The National Vulnerability
Database maintained by National Institute of Standards and Technology lists 3,177
vulnerabilities mentioning “Windows 10 Pro” and 203 vulnerabilities are
specifically mentioning “Windows 10 Pro 1607” which is the specific version
number of the build 14393 that Dominion uses.
37.

Even without internet connectivity, unhardened computers are at risk

when those are used to process removable media. It was clear that when Compact
Flash storage media containing the ballot images, audit logs and results from the
precinct scanners were connected to the server, the media was automounted by the
operating system. When the operating system is automounting a storage media, the
operating system starts automatically to interact with the device. The zero-day
13

201

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 15 of 48

vulnerabilities exploiting this process has been recurringly discovered from all
operating systems, including Windows. Presence of automount calls also into
question presence of another setting which is always disabled in hardening process.
It is autorun, which automatically executes some content on the removable media.
While this is convenient for consumers, it poses extreme security risk.
38.

Based on my experience and mental impression observing the

Dominion technician’s activities, Fulton County’s EMS server management seems
to be an ad hoc operation with no formalized process. This was especially clear on
the manual processing of the memory cards storage devices coming in from the
precincts on election night and the repeated access of the operating system to
directly access filesystem, format USB devices, etc. This kind of operation in
naturally prone to human errors. I observed personnel calling on the floor asking if
all vote carrying compact flash cards had been delivered from the early voting
machines for processing, followed by later finding additional cards which had been
overlooked in apparent human error. Later, I heard again one technician calling on
the floor asking if all vote carrying compact flashes had been delivered. This
clearly demonstrates lack of inventory management which should be in place to
ensure, among other things, that no rogue storage devices would be inserted into
the computer. In response, 3 more compact flash cards were hand-delivered. Less
14

202

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 16 of 48

than 5 minutes later, I heard one of the county workers say that additional card was
found and was delivered for processing. All these devices were trusted by printed
label only and no comparison to an inventory list of any kind was performed.
39.

In addition, operations were repeatedly performed directly on the

operating system. Election software has no visibility into the operations performed
directly on the operating system, and therefore those are not included in election
system event logging. Those activities can only be partially reconstructed from
operating system logs – and as these activities included copying election data files,
election software log may create false impression that the software is accessing the
same file over a period of time, while in reality the file could had been replaced
with another file with the same name by activities commanded to the operating
system. Therefore, any attempt to audit the election system operated in this manner
must include through analysis of all operating system logs, which complicates the
auditing process. Unless the system is configured properly to collect file system
auditing data is not complete. As the system appears not to be hardened, it is
unlikely that the operating system has been configured to collect auditing data.
40.

A human error when operating live election system from the operating

system can result in a catastrophic event destroying election data or even rendering
the system unusable. Human error is likely given the time pressure involved and,
15

203

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 17 of 48

at least in Fulton County, no formal check lists or operating procedures were
followed to mitigate the human error risk. The best practice is to automate trivial
tasks to reduce risk of human error, increase the quality assurance of overall
operations and provide auditability and transparency by logging.
41.

Uploading of memory cards had already started before I arrived at

EPC. While one person was operating the upload process, the two other Dominion
employees were troubleshooting issues which seemed to be related to ballot images
uploads. I repeatedly observed error messages appearing on the screen of the EMS
server. I was not able to get picture of the errors on August 11th, I believe the error
was the same or similar that errors recurring August 17th as shown on Exhibit D
and discussed later in this declaration. Dominion employees were troubleshooting
the issue with ‘trial-and-error’ approach. As part of this effort they accessed
“Computer Management” application of Windows 10 and experimented with
trouble shooting the user account management feature. This demonstrates that they
had complete access to the computer. This means there are no meaningful access
separation and privileges and roles controls protecting the county’s primary
election servers. This also greatly amplifies the risk of catastrophic human error
and malicious program execution.

16

204

Case 2:20-cv-01771-PP Filed 12/01/20 Page 17 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 18 of 48

42.

I overheard the Dominion technician’s conversation that they had

issues with file system structure and “need 5 files out of EMS server and paste.
Delete everything out of there and put it there.” To communicate the gravity of the
situation to each other they added “Troubleshooting in the live environment”.
These conversations increased the mental image that they were not familiar the
issue they were troubleshooting.
43.

After about 45 minutes of trying to solve the issue by instructions

received over the phone, the two Dominion employees’ (who had been
troubleshooting) behavior changed. The Dominion staff member walked behind
the server rack and made manual manipulations which could not be observed from
my vantage point. After that they moved with their personal laptops to a table
physically farther away from the election system and stopped trying different ways
to work around the issue in front of the server, and no longer talked continuously
with their remote help over phone.
44.

In the follow-up-calls I overheard them ask people on the other end of

the call to check different things, and they only went to a computer and appeared to
test something and subsequently take a picture of the computer screen with a
mobile phone and apparently send it to a remote location.

17

205

Case 2:20-cv-01771-PP Filed 12/01/20 Page 18 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 19 of 48

45.

Based on my extensive experience, this all created a strong mental

impression that the troubleshooting effort was being done remotely over remote
access to key parts of the system. Additionally, new wireless access point with a
hidden SSID access point name appeared in the active Wi-Fi stations list that I was
monitoring, but it may have been co-incidental. Hidden SSIDs are used to obscure
presence of wireless networking from casual observers, although they do not
provide any real additional security.
46.

If in fact remote access was arranged and granted to the server, this

has gravely serious implications for the security of the new Dominion system.
Remote access, regardless how it is protected and organized is always a security
risk, but furthermore it is transfer of control out of the physical perimeters and
deny any ability to observe the activities.
47.

I also observed USB drives marked with the Centon DataStick Pro

Logo with no visible inventory control numbering system being taken repeatedly
from the EMS server rack to the Fulton managers’ offices and back. The
Dominion employee told me that the USB drives were being taken to the Election
Night Reporting Computer in another office. This action was repeated several
times during the time of my observation. Carrying generic unmarked and therefore
unidentifiable media out-of-view and back is a security risk – especially when the
18

206

Case 2:20-cv-01771-PP Filed 12/01/20 Page 19 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 20 of 48

exact same type of devices was piled on the desk near the computer. During the
election night, the Dominion employees reached to storage box and introduced
more unmarked storage devices into the ongoing election process. I saw no effort
made to maintain a memory card inventory control document or chain of custody
accounting for memory cards from the precincts.
48.

I also visited the EPC on August 17. During that visit, the staff

working on uploading ballots for adjudication experienced an error which appeared
similar to the one on election night. This error was repeated with multitude of
ballots and at the time we left the location, the error appeared to be ignored, rather
that resolved. (EXHIBIT D - the error message and partial explanation of the error
being read by the operator.).
49.

The security risks outlined above – operating system risks, the failure

to harden the computers, performing operations directly on the operating systems,
lax control of memory cards, lack of procedures, and potential remote access, are
extreme and destroy the credibility of the tabulations and output of the reports
coming from a voting system.
50.

Such a risk could be overcome if the election were conducted using

hand marked paper ballots, with proper chain of custody controls. For elections
conducted with hand marked paper ballots, any malware or human error involved
19

207

Case 2:20-cv-01771-PP Filed 12/01/20 Page 20 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 21 of 48

in the server security deficiencies or malfunctions could be overcome with a robust
audit of the hand marked paper ballots and in case of irregularities detected,
remedied by a recount. However, given that BMD ballots are computer marked,
and the ballots therefore unauditable for determining the result, no recovery from
system security lapses is possible for providing any confidence in the reported
outcomes.
Ballot Scanning and Tabulation of Vote Marks
51.

I have been asked to evaluate the performance and reliability of

Georgia’s Dominion precinct and central count scanners in the counting of votes
on hand marked paper ballots.
52.

On or about June 10th, Jeanne Dufort and Marilyn Marks called me to

seek my perspective on what Ms. Dufort said she observed while serving as a Vote
Review Panel member in Morgan County. Ms. Dufort told me that she observed
votes that were not counted as votes nor flagged by the Dominion adjudication
software.
53.

Because of the ongoing questions this raised related to the reliability

of the Dominion system tabulation of hand marked ballots, I was asked by
Coalition Plaintiffs to conduct technical analysis of the scanner and tabulation
accuracy. That analysis is still in its early stages.
20

208

Case 2:20-cv-01771-PP Filed 12/01/20 Page 21 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 22 of 48

54.

Before addressing the particulars of my findings and research into the

accuracy of Dominion’s scanning and tabulation, I will address the basic process
by which an image on a voted hand marked paper ballot is processed by scanner
and tabulation software generally. It is important to understand that the Dominion
scanners are Canon off the shelf scanners and their embedded software were
designed for different applications than ballot scanning which is best conducted
with scanners specifically designed for detecting hand markings on paper ballots.
55.

Contrary of public belief, the scanner is not taking a picture of the

paper. The scanner is illuminating the paper with a number of narrow spectrum
color lights, typically 3, and then using software to produce an approximation what
the human eye would be likely to see if there would had been a single white widespectrum light source. This process takes place in partially within the scanner and
embedded software in the (commercial off the shelf) scanner and partially in the
driver software in the host computer. It is guided by number of settings and
configurations, some of which are stored in the scanner and some in the driver
software. The scanner sensors gather more information than will be saved into the
resulting file and another set of settings and configurations are used to drive that
part of the process. The scanners also produce anomalies which are automatically
removed from the images by the software. All these activities are performed
21

209

Case 2:20-cv-01771-PP Filed 12/01/20 Page 22 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 23 of 48

outside of the Dominion election software, which is relying on the end product of
this process as the input.
56.

I began reviewing Dominion user manuals in the public domain to

further investigate the Dominion process.
57.

On August 14, I received 2 sample Fulton County August 11 ballots

of high-speed scanned ballot from Rhonda Martin, who stated that she obtained
them from Fulton County during Coalition Plaintiff’s discovery. The image
characteristics matched the file details I had seen on the screen in EPC. The image
is TIFF format, about 1700 by 2200 pixels with 1-bit color depth (= strictly black
or white pixels only) with 200 by 200 dots per square inch (“dpi”) resolution
resulting in files that are typically about 64 or 73 kilo bytes in size for August 11
ballots. With this resolution, the outer dimension of the oval voting target is about
30 by 25 pixels. The oval itself (that is, the oval line that encircles the voting
target) is about 2 pixels wide. The target area is about 450 pixels; the area of the
target a tight bounding box would be 750 pixels and the oval line encircling the
target is 165 pixels. In these images, the oval itself represented about 22% value in
the bounding box around the vote target oval.
58.

Important image processing decisions are done in scanner software

and before election software threshold values are applied to the image. These
22

210

Case 2:20-cv-01771-PP Filed 12/01/20 Page 23 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 24 of 48

scanner settings are discussed in an excerpt Dominion’s manual for ICC operations
My understanding is that the excerpt of the Manual was received from Marilyn
Marks who stated that she obtained it from a Georgia election official in response
to an Open Records request. Attached as Exhibit E is page 9 of the manual. Box
number 2 on Exhibit E shows that the settings used are not neutral factory default
settings.
59.

Each pixel of the voters’ marks on a hand marked paper ballot will be

either in color or gray when the scanner originally measures the markings. The
scanner settings affect how image processing turns each pixel from color or gray to
either black or white in the image the voting software will later process. This
processing step is responsible for major image manipulation and information
reduction before the election software threshold values are calculated. This process
has a high risk of having an impact upon how a voter mark is interpreted by the
tabulation software when the information reduction erases markings from the
scanned image before the election software processes it.
60.

In my professional opinion, any decision by Georgia’s election

officials about adopting or changing election software threshold values is
premature before the scanner settings are thoroughly tested, optimized and locked.

23

211

Case 2:20-cv-01771-PP Filed 12/01/20 Page 24 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 25 of 48

61.

The impact of the scanner settings is minimal for markings made with

a black felt pen but can be great for markings made with any color ballpoint pens.
To illustrate this, I have used standard color scanning settings and applied then
standard conversion from a scanned ballot vote target with widely used free and
open source image processing software “GNU Image Manipulation Program
version 2.10.18” EXHIBIT G shows the color image being converted with the
software’s default settings from color image to Black-and-White only. The red
color does not meet the internal conversion algorithm criteria for black, therefore it
gets erased to white instead.
62.

Dominion manual for ICC operations clearly show that the scanner

settings are changed from neutral factory default settings. EXHIBIT H shows how
these settings applied different ways alter how a blue marking is converted into
Black-and-White only image.
63.

The optimal scanner settings are different for each model of scanner

and each type of paper used to print ballots. Furthermore, because scanners are
inherently different, the manufacturers use hidden settings and algorithms to cause
neutral factory settings to produce similar baseline results across different makes
and models. This is well-studied topic; academic and image processing studies
published as early as 1979 discuss the brittleness of black-or-white images in
24

212

Case 2:20-cv-01771-PP Filed 12/01/20 Page 25 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 26 of 48

conversion. Subsequently, significance for ballot counting has been discussed in
academic USENIX conference peer-reviewed papers.
64.

On the August 17th at Fulton County Election Preparation Center

Professor Richard DeMillo and I participated in a scan test of August 11 test
ballots using a Fulton County owned Dominion precinct scanner. Two different
ballot styles were tested, one with 4 races and one with 5 races. Attached as
Exhibits I and J show a sample ballots with test marks.
65.

A batch of 50 test ballots had been marked by Rhonda Martin with

varying types of marks and varying types of writing instruments that a voter might
use at home to mark an absentee ballot. Professor DeMillo and I participated in
marking a handful of ballots.
66.

Everything said here concerning the August 17 test is based on a very

preliminary analysis. The scanner took about 6 seconds to reject the ballots, and
one ballot was only acceptable “headfirst” while another ballot only “tail first.”
Ballot scanners are designed to read ballots “headfirst” or “tail first,” and front side
and backside and therefore there should not be ballots which are accepted only in
one orientation. I observed the ballots to make sure that both ballots had been
cleanly separated from the stub and I could not identify any defects of any kind on
the ballots.
25

213

Case 2:20-cv-01771-PP Filed 12/01/20 Page 26 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 27 of 48

67.

There was a 15 second cycle from the time the precinct scanner

accepted a ballot to the time it was ready for the next ballot. Therefore, the
maximum theoretical capacity with the simple 5 race ballot is about 4 ballots per
minute if the next ballot is ready to be fed into the scanner as soon as the scanner
was ready to take it. In a real-world voting environment, it takes considerably
longer because voters move away from the scanner, the next voter must move in
and subsequently figure where to insert the ballot. The Dominion precinct scanner
that I observed was considerably slower than the ballot scanners I have tested over
the last 15 years. This was done with a simple ballot, and we did not test how
increase of the number of races or vote targets on the ballot would affect the
scanning speed and performance.
68.

Though my analysis is preliminary, this test reveals that a significant

percentage of filled ovals that would to a human clearly show voter’s intent failed
to register as a vote on the precinct count scanner.
69.

The necessary testing effort has barely begun at the time of this

writing, as only limited access to equipment has been made available. I have not
had access to the high-volume mail ballot scanner that is expected to process
millions of mail ballots in Georgia’s upcoming elections. However, initial results
suggest that significant revisions must be made in the scanning settings to avoid a
26

214

Case 2:20-cv-01771-PP Filed 12/01/20 Page 27 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 28 of 48

widespread failure to count certain valid votes that are not marked as filled in
ovals. Without testing, it is impossible to know, if setting changes alone are
sufficient to cure the issue.
Scanned Ballot Tabulation Software Threshold Settings
70.

Georgia is employing a Dominion tabulation software tool called

“Dual Threshold Technology” for “marginal marks.” (See Exhibit M) The intent of
the tool is to detect voter marks that could be misinterpreted by the software and
flag them for review. While the goal is admirable, the method of achieving this
goal is quite flawed.
71.

While it is compelling from development cost point of view to use

commercial off the shelf COTS scanners and software, it requires additional steps
to ensure that the integration of the information flow is flawless. In this case, the
software provided by the scanner manufacturer and with settings and
configurations have great impact in how the images are created and what
information is removed from the images before the election software processes it.
In recent years, many defective scanner software packages have been found. These
software flaws include ‘image enhancement’ features which have remained
enabled even when the feature has been chosen to be disabled from the scanner
software provided by the manufacturer. An example of dangerous feature to keep
27

215

Case 2:20-cv-01771-PP Filed 12/01/20 Page 28 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 29 of 48

enabled is ‘Punch Hole Removal’, intended to make images of documents removed
from notebook binders to look more aesthetically pleasing. The software can and
in many cases will misinterpret a voted oval as a punch hole and erase the vote
from the image file and to make this worse, the punch holes are expected to be
found only in certain places near the edge of the paper, and therefore it will erase
only votes from candidates whose targets are in those target zones.
72.

Decades ago, when computing and storage capacity were expensive

black-and-white image commonly meant 1-bit black-or-white pixel images like
used by Dominion system. As computer got faster and storage space cheaper
during the last 2-3 decades black-and-white image has become by default meaning
255 shades of gray grayscale images. For the purposes of reliable digitalization of
physical documents, grayscale image carries more information from the original
document for reliable processing and especially when colored markings are being
processed. With today’s technology, the difference in processing time and storage
prices between grayscale and 1-bit images has become completely meaningless,
and the benefits gained in accuracy are undeniable.
73.

I am aware that the Georgia Secretary of State’s office has stated that

Georgia threshold settings are national industry standards for ballot scanners
(Exhibit K). This is simply untrue. If, there were an industry standard for that, it
28

216

Case 2:20-cv-01771-PP Filed 12/01/20 Page 29 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 30 of 48

would be part of EAC certification. There is no EAC standard for such threshold
settings. As mentioned before, the optimal settings are products of many elements.
The type of the scanner used, the scanner settings and configuration, the type of the
paper used, the type of the ink printer has used in printing the ballots, color dropout
settings, just to name few. Older scanner models, which were optical mark
recognitions scanners, used to be calibrated using calibration sheet – similar
process is needed to be established for digital imaging scanners used this way as
the ballot scanners.
74.

Furthermore, the software settings in Exhibit E box 2 show that the

software is instructed to ignore all markings in red color (“Color drop-out: Red”),
This clearly indicates that the software was expecting the oval to be printed in Red
and therefore it will be automatically removed from the calculation. The software
does not anticipate printed black ovals as used in Fulton County. Voters have
likely not been properly warned that any pen they use which ink contains high
concentration of red pigment particles is at risk of not counting, even if to the
human eye the ink looks very dark.
75.

I listened to the August 10 meeting of the State Board of Elections as

they approved a draft rule related to what constitutes a vote, incorporating the
following language:
29

217

Case 2:20-cv-01771-PP Filed 12/01/20 Page 30 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 31 of 48

Ballot scanners that are used to tabulate optical scan ballots marked by
hand shall be set so that:
1. Detection of 20% or more fill-in of the target area surrounded by the
oval shall be considered a vote for the selection;
2. Detection of less than 10% fill-in of the target area surrounded by the
oval shall not be considered a vote for that selection;
3. Detection of at least 10% but less than 20% fill-in of the target area
surrounded by the oval shall flag the ballot for adjudication by a vote
review panel as set forth in O.C.G.A. 21-2-483(g). In reviewing any ballot
flagged for adjudication, the votes shall be counted if, in the opinion of the
vote review panel, the voter has clearly and without question indicated the candidate or
candidates and answers to questions for which such voter desires to vote.

76.

The settings discussed in the rule are completely subject to the

scanner settings. How the physical marking is translated into the digital image is
determined by those values and therefore setting the threshold values without at the
same time setting the scanner settings carries no value or meaning. If the ballots
will be continuing to be printed with black only, there is no logic in having any
drop-out colors.
77.

Before the State sets threshold standards for the Dominion system,

extensive testing is needed to establish optimal configuration and settings for each
step of the process. Also, the scanners are likely to have settings additional
configuration and settings which are not visible menus shown in the manual
excerpt. All those should be evaluated and tested for all types of scanners approved
for use in Georgia, including the precinct scanners
30

218

Case 2:20-cv-01771-PP Filed 12/01/20 Page 31 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 32 of 48

78.

As temporary solution, after initial testing, the scanner settings and

configuration should be locked and then a low threshold values should be chosen.
All drop-out colors should be disabled. This will increase the number of ballots
chosen for human review and reduce the number of valid votes not being counted
as cast.
Logic and Accuracy Testing
79.

Ballot-Marking Device systems inherits the same well-documented

systemic security issues embedded in direct-recording electronic (DRE) voting
machine design. Such design flaws eventually are causing the demise of DRE
voting system across the country as it did in Georgia. In essence the Ballot
Marking Device is a general-purpose computer running a general-purpose
operating system with touchscreen that is utilized as a platform to run a software,
very similar to DRE by displaying a ballot to the voter and recording the voter’s
intents. The main difference is that instead of recording those internally digitally, it
prints out a ballot summary card of voter’s choices.
80.

Security properties of this approach would be positively different

from DREs if the ballot contained only human-readable information and all voters
are required to and were capable of verifying their choices from the paper ballot
summary. That of course is unrealistic.
31

219

Case 2:20-cv-01771-PP Filed 12/01/20 Page 32 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 33 of 48

81.

When voter fails to inspect the paper ballot and significant portion of

the information is not in human readable from as a QR barcode, Ballot-Marking
Device based voting effectively inherits most of the negative and undesirable
security and reliability properties directly from DRE paradigm, and therefore
should be subject to the same testing requirements and mitigation strategies as
DREs.
82.

In response to repeating myriad of issues with DREs, which have been

attributed to causes from screen calibration issues to failures in ballot definition
configuration distribution, a robust Logic & Accuracy testing regulation have been
established. These root causes are present in BMDs and therefore should be
evaluated in the same way as DREs have been.
I received the Georgia Secretary of State’s manual “Logic and Accuracy
Procedures “Version 1.0 January 2020 from Rhonda Martin. Procedure described
in section D “Testing the BMD and Printer” is taking significant shortcuts,
presumably to cut the labor work required. (Section D is attached as Exhibit L)
These shortcuts significantly weaken the security and reliability posture of the
system and protections against already known systemic pitfalls, usability
predicaments and security inadequacies.

32

220

Case 2:20-cv-01771-PP Filed 12/01/20 Page 33 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 34 of 48

CONCLUSIONS
83.

The scanner software and tabulation software settings and

configurations being employed to determine which votes to count on hand marked
paper ballots are likely causing clearly intentioned votes not to be counted as cast.
84.

The method of using 1-bit images and calculated relative darkness

values from such pre-reduced information to determine voter marks on ballots is
severely outdated and obsolete. It artificially and unnecessarily increases the
failure rates to recognize votes on hand-marked paper ballots. As a temporary
mitigation, optimal configurations and settings for all steps of the process should
be established after robust independent testing to mitigate the design flaw and
augment it with human assisted processes, but that will not cure the root cause of
the software deficiency which needs to be addressed.
85.

The voting system is being deployed, configured and operated in

Fulton County in a manner that escalates the security risk to an extreme level and
calls into question the accuracy of the election results. The lack of well-defined
process and compliance testing should be addressed immediately using
independent experts. The use and the supervision of the Dominion personnel
operating Fulton County’s Dominion Voting System should be evaluated.

33

221

Case 2:20-cv-01771-PP Filed 12/01/20 Page 34 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 35 of 48

86.

Voters are not reviewing their BMD printed ballots before scanning

and casting them, which causes BMD-generated results to be un-auditable due to
the untrustworthy audit trail. Furthermore, because BMDs are inheriting known
fundamental architectural deficiencies from DREs, no mitigation and assurance
measures can be weakened, including but not limited to Logic and Accuracy
Testing procedures.

This 24th day of August 2020.
________________________
Harri Hursti

34

222

Case 2:20-cv-01771-PP Filed 12/01/20 Page 35 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 36 of 48

EXHIBIT A:

35

223

Case 2:20-cv-01771-PP Filed 12/01/20 Page 36 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 37 of 48

EXHIBIT B:

36

224

Case 2:20-cv-01771-PP Filed 12/01/20 Page 37 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 39 of 48

EXHIBIT D:

38

226

Case 2:20-cv-01771-PP Filed 12/01/20 Page 39 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 40 of 48

EXHIBIT E:

39

227

Case 2:20-cv-01771-PP Filed 12/01/20 Page 40 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 41 of 48

EXHIBIT F:

40

228

Case 2:20-cv-01771-PP Filed 12/01/20 Page 41 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 42 of 48

EXHIBIT G:

41

229

Case 2:20-cv-01771-PP Filed 12/01/20 Page 42 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 43 of 48

EXHIBIT H:

42

230

Case 2:20-cv-01771-PP Filed 12/01/20 Page 43 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 44 of 48

EXHIBIT I:

43

231

Case 2:20-cv-01771-PP Filed 12/01/20 Page 44 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 45 of 48

EXHIBIT J:

44

232

Case 2:20-cv-01771-PP Filed 12/01/20 Page 45 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 46 of 48

EXHIBIT K:

45

233

Case 2:20-cv-01771-PP Filed 12/01/20 Page 46 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 47 of 48

EXHIBIT L:

46

234

Case 2:20-cv-01771-PP Filed 12/01/20 Page 47 of 48 Document 1-14

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 48 of 48

EXHIBIT M:

47

235

Case 2:20-cv-01771-PP Filed 12/01/20 Page 48 of 48 Document 1-14

236

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 5 Document 1-15

237

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 5 Document 1-15

238

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 5 Document 1-15

239

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 5 Document 1-15

240

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 5 Document 1-15

Declaration of Seth Keshel
Pursuant to 28 U.S.C Section 1746, I, Seth Keshel, make the following
declaration.
1. I am over the age of 21 years and I am under no legal disability, which
would prevent me from giving this declaration.
2. I am a trained data analyst with experience in multiple fields,
including service in the United States Army as a Captain of Military
Intelligence, with a one-year combat tour in Afghanistan.

My

experience includes political involvement requiring a knowledge of
election trends and voting behavior.
3. I reside at 233 Muir Hill Dr., Aledo, TX 76008.
4. My declaration highlights substantial deviance from statistical norms
and results regarding voting patterns in Wisconsin.
5. All 2020-related voting totals are taken from the Decision Desk HQ
unofficial tracker, are not certified, and are subject to change from the
time of the creation of this declaration.
6. Wisconsin has shown a steady decrease for support in Democratic
presidential nominees since Barack Obama won the state by 13.91%
in 2008. He won Wisconsin again in 2012, but only by a margin of
6.94%, and Republican Donald Trump won the state by 0.77% in 2016.
7. As part of an overall working-class voter shift, Wisconsin has moved
in the same manner as Pennsylvania, Ohio, Michigan, and Minnesota
– decreasing levels of support for Democratic nominees, and by
consequence of this shift, increasing levels of support for Republican

241

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 4 Document 1-16

nominees. This shift is captured in visual form in Exhibit A to this
declaration.
8. The following counties have cast more Democratic presidential votes
than cast for Obama in 2008, when he won the state by 13.91%:
a. Ozaukee – 26,515 Biden votes, a 31.5% increase from 2016, and
28.8% more than cast for Obama in 2008. President Trump has
increased his vote share by 11.3%, receiving 33,912 votes.
Democratic vote shifts were -6.9% in 2012 and +5.3% in 2016.
b. Dane – 260,157 Biden votes, a 19.5% increase from 2016, and
26.3% more than cast for Obama in 2008. President Trump has
increased his vote share by 10.5%, receiving 78,789 votes.
Democratic vote shifts were +4.9% in 2012 and +0.8% in 2016.
Dane County is home to the University of Wisconsin. President
Obama had record support, turnout, and enthusiasm among
college-age students and did not have to navigate pandemicrelated challenges to turn out these voters, which makes Biden’s
total extremely suspicious.
c. Waukesha – 103,867 Biden votes, a 31.1% increase from 2016,
and 21.7% more than cast for Obama in 2008. President Trump
has increased his vote share by 12.0%, receiving 159,633 votes.
Democratic vote shifts were -7.7% in 2012 and +0.6% in 2016.
d. St. Croix - 23,190 Biden votes, a 32.7% increase from 2016, and
9.5% more than cast for Obama in 2008. President Trump has
increased his vote share by 22.8%, receiving 32,190 votes.
Democratic vote shifts were -6.0% in 2012 and -12.2% in 2016,

242

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 4 Document 1-16

making such a sharp Democratic turnabout in the face of a
strong President Trump vote increase extremely suspect.
e. Washington - 26,647 Biden votes, a 27.8% increase from 2016,
and 3.6% more than cast for Obama in 2008. President Trump
has increased his vote share by 16.4%, receiving 60,235 votes.
Democratic vote shifts were -9.9% in 2012 and
-10.0% in 2016. A rebound of 27.8% for Democrats from two
consecutive cycles of heavy losses, particularly with President
Trump reconsolidating the Republican Party base and lost thirdparty voters, seems unlikely.
f. Bayfield - 6,155 Biden votes, a 24.3% increase from 2016, and
3.1% more than cast for Obama in 2008. President Trump has
increased his vote share by 12.0%, receiving 4,617 votes.
Democratic vote shifts were +1.0% in 2012 and
-18.9% in 2016.
9. Milwaukee County’s voter rolls shrank from 2016 to 2020, after losing
13.1% of President Obama’s Democratic vote total from 2012; however,
this year, Milwaukee County has surged in Democratic votes to nearly
equal Obama re-election levels with 317,251 votes, even as President
Trump has made an increase of 6.6% in votes. With a declining voter
roll, Milwaukee County was likely on track to cast less than 275,000
Democratic ballots this year. Combining these resurgent totals with
the transparency issues experienced on the early morning hours of
November 4, their current total of 317,251 is strikingly suspect.
10.

New York Times live vote reporting shows a dump of 168,541 votes

at 3:42:20 (a.m.) on November 4, 2020.
243

Of those votes, 143,378

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 4 Document 1-16

(85.07%) went for Biden, and just 25,163 (14.93%) went for Trump.
This dump was enough to flip the race with almost no transparency to
the viewing public. The live graph showing this vote dump (circled) is
attached as Exhibit D to this document.
11.

President Trump has vastly increased his vote share in the entirety

of Wisconsin, and also in the rural parts of the state, including the
counties he flipped from Democratic to Republican in 2016; however,
against the trends of the previous election, the Democrats have
increased at greater margins than Trump has, thereby erasing margin
gain, and allowing for suspicious vote totals in Milwaukee, Dane,
Ozaukee, Waukesha, St. Croix, and other counties with strikingly high
Democratic vote totals to overwhelm Trump’s totals.

A county

classification of Wisconsin is available in Exhibit B to this declaration,
and a full analysis of Wisconsin’s voter irregularities is available in
Exhibit C.

Seth Keshel
17 Nov. 2020
Aledo, Texas

244

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 4 Document 1-16

Improbable Voting Trend Reversals in Wisconsin
Seth Keshel, MBA
Executive Summary
Wisconsin is showing the same pattern of potential widespread fraud as observed in Pennsylvania, Michigan, Georgia, and North
Carolina. While Milwaukee County is focal for transparency and observation violations, including reporting statistically impossible vote counts
in the early morning hours away from scrutiny, Dane County has surged far past support totals for President Obama, despite expected difficulties
mobilizing student voters to polls. President Trump has reconsolidated the Republican base in suburban Milwaukee and far surpassed his 2016
support levels but has been limited in margin growth by historically improbable Democratic support in these strongholds, which defy years of
data in Wisconsin in which the Republican party surged as the Democratic Party plunged. Finally, in strong Trump counties showing a double
inversion cycle (one party up, the other down), particularly in rural and exurban Wisconsin, Trump’s totals are soaring, and against established
trends, Biden’s totals are at improbable levels of support despite lacking registration population growth.
The entire vote must be recanvassed and audited for both electronic vote fraud and mail/absentee fraud.
Opening
Since President Obama swept through the Midwest (“Rust Belt”) region in 2008, winning Pennsylvania by 10 percent, Michigan by
16 percent, and Wisconsin by 14 percent, the Democratic Party has declined steadily in all successive Presidential elections in not only share of
the vote, but in raw votes overall, without exception (pending the final results of the 2020 election). Pennsylvania is the only state mentioned in
this paragraph which registers voters by party, and it has trended three percentage points in favor of Republicans since the 2016 election. The
raw vote trends and results in these three states, plus Ohio and Minnesota, are pictured below.

These trends show the Democrats losing raw votes in every election since 2008, with the Republicans gaining in eight of 10 samples,
and with the margins moving in favor of Republicans each time. This is a product of limited or stagnant population growth in these states, which
given stable turnout numbers, means one party is typically going down if another is going up. In fast-growing states such as Florida, Texas, or
Arizona, it should be expected for both parties to make substantial gains in a “horse race” scenario.
Wisconsin
President Obama’s margin of victory in Wisconsin from 2008 fell from 13 91% to 6.94% in his reelection campaign, and that margin
moved 7.71% toward Republicans in 2016 as the working-class communities that historically favored Democrats moved to support thencandidate Donald Trump. Declining voting power from these working class counties beginning and 2012, and then from Milwaukee County in
2016 was an instrumental part of this shift, as was the substantial movement of northern Wisconsin toward the Republican Party. President
Trump was able to win Wisconsin in 2016 thanks to substantially decreased support for Democrats, and even overcame less than optimal support
from the Republican strongholds of southeastern Wisconsin.
The consistent characteristic in the shift in Wisconsin’s political landscape is the declining Democratic Party raw vote totals, and the
increasing Republican totals. Thus far, according to the Decision Desk unofficial vote tally, President Trump is substantially adding to his vote
totals in every Wisconsin County, while his opponent adds votes at a greater percentage, often in counties that have trended steadily away from
Democrats since at least 2008. The following counties, which have mostly lost Democratic votes since 2008, have now contributed more Biden
votes than Obama received in 2008, when he won the state by 13.91%. Green font represents growth in raw votes. Red font represents decrease
in raw votes.

245

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 4 Document 1-17

County

Rep ’08

Dem ’08 Rep ’12

Dem ’12 Rep ’16

Dem ’16 Rep ’20

Dem ’20 Dem Percentage of Obama 2008 Votes

Ozaukee 32,172

20,579

36,077

19,159

30,464

20,170

33,912

26,515

% Increase N/A

N/A

12.1%

(6.9%)

(15.6%)

5.3%

11.3%

31.5%

205,984

83,644

216,071

71,275

217,697

78,789

260,157

N/A

14.5%

4.9%

(14.8%)

0.8%

10.5%

19.5%

Waukesha 145,152

85,339

162,798

78,779

142,543

79,224

159,633

103,867

% Increase N/A

N/A

12.2%

(7.7%)

(12.4%)

0.6%

12.0%

31.1%

53,408

49,347

53,008

46,681

42,641

54,475

50,154

N/A

7.4%

(0.7%)

(5.4%)

(19.6%)

16.7%

17.6%

St. Croix 22,837

21,177

25,503

19,910

26,222

17,482

32,190

23,190

% Increase N/A

N/A

11.7%

(6.0%)

2.8%

(12.2%)

22.8%

32.7%

Wash’ton 47,729

25,719

54,765

23,166

51,740

20,852

60,235

26,647

% Increase N/A

N/A

14.7%

(9.9%)

(5.5%)

(10.0%)

16.4%

27.8%

5,972

3,603

6,033

4,124

4,953

4,617

6,155

N/A

7.1%

1.0%

14.5%

(18.9%)

12.0%

24.3%

128.8%

---Dane

73,065

% Increase N/A

126.3%

---121.7%

---Racine

45,954

% Increase N/A

117.6%

---109.5%

---103.6%

---Bayfield

3,365

% Increase N/A

103.1%

OTHER NOTABLE COUNTIES

County

Rep ’08

Dem ’08 Rep ’12

Dem ’12 Rep ’16

Dem ’16 Rep ’20

Dem ’20 Dem Percentage of Obama 2008 Votes

Milwaukee149,445

319,819

154,924

332,438

126,069

288,822

134,355

317,251

% Increase N/A

N/A

3.7%

3.9%

(18.6%)

(13.1%)

6.6%

9.8%

La Crosse 23,701

38,524

25,751

36,693

26,378

32,406

28,661

37,817

% Increase N/A

N/A

8.6%

(4.8%)

2.4%

(11.7%)

8.7%

16.7%

67,269

64,836

62,526

67,210

53,382

75,865

65,509

N/A

16.1%

(7.1%)

3.7%

(14.6%)

12.9%

22.7%

Eau Claire 20,959

33,146

23,256

30,666

23,331

27,340

25,339

31,617

% Increase N/A

N/A

11.0%

(7.5%)

0.3%

(10.8%)

8.6%

15.6%

99.2%

---98.5%

---Brown

55,854

% Increase N/A

97.4%

---95.6%

----

246

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 4 Document 1-17

Outagamie39,667

50,294

47,372

45,659

49,879

38,068

58,379

47,659

% Increase N/A

N/A

19.4%

(9.2%)

5.3%

(16.4%)

17.0%

25.2%

Walworth 25,485

24,117

29,006

22,552

28,863

18,710

33,844

22,783

% Increase N/A

N/A

13.8%

(6.7%)

(0.5%)

(17.0%)

17.3%

21.8%

50,529

30,517

49,219

31,493

39,339

37,133

46,649

N/A

11.5%

(2.6%)

3.2%

(20.1%)

17.9%

18.6%

Kenosha 31,609

45,836

34,977

44,867

36,037

35,799

44,972

42,191

% Increase N/A

N/A

10.6%

(2.1%)

3.0%

(20.2%)

24.8%

17.9%

Winnebago37,946

48,167

42,122

45,449

43,445

37,047

47,795

44,060

% Increase N/A

N/A

11.0%

(5.6%)

3.1%

(18.5%)

10.0%

18.9%

Sheboygan 30,801

30,395

34,072

27,918

32,514

23,000

37,624

27,109

% Increase N/A

N/A

10.6%

(8.1%)

(4.6%)

(17.6%)

15.7%

17.9%

Fond D.L. 28,164

23,463

30,355

22,379

31,022

17,387

35,754

20,588

% Increase N/A

N/A

7.8%

(4.6%)

2.1%

(22.3%)

15.3%

18.4%

Marathon 30,345

36,367

36,617

32,363

39,014

26,481

44,623

30,807

% Increase N/A

N/A

20.7%

(11.0%)

6.5%

(18.2%)

14.4%

16.3%

94.8%

---94.2%

---Rock

27,364

% Increase N/A

92.3%

---92.0%

---91.5%

---89.2%

---87.7%

---84.7%

Findings
The most suspicious counties are those that showed two consecutive elections trending upward for the Republican candidate and downward for
the Democratic candidate. These show a similar pattern to counties in Pennsylvania trending heavily Republican in registration, with a
significant increase for President Trump in raw votes in 2020, but a smaller than expected margin due to an unexpected sharp reversal of votes for
Biden in counties showing inverse trends for parties in recent elections. The only counties not showing two consecutive cycles of decline for
Democrats are Waukesha, Bayfield, and Milwaukee. Wisconsin had several Republican counties in 2016 with fewer votes for Trump and higher
third-party vote shares (hence 2,682 fewer votes for Trump than Romney), but based on 2020 returns to this point, that has been overcome in
every single county.
Dane County is clearly associated with a major university, with student turnout thought to be reaching record lows due to campus shutdowns and
lack of mobilization. This county is over 2008 Obama levels by 26.3% (54,173 votes), when that candidate drew record support from young
voters, and up 19.5% since 2016, after two consecutive elections of sparse growth in Democrat votes. This county is one of few counties Obama
overperformed in for his reelection, and 2020’s total is still 20.4% over that number. The same mathematical improbability given the
circumstances of 2020 was also seen in Washtenaw County, Michigan (home county of the University of Michigan). Dane County should be
audited and recanvassed significantly, particularly for mail and absentee ballot fraud.
Trump slightly underperformed Romney’s 2012 vote totals statewide because he lagged in total votes from suburban counties Waukesha, Racine,
Washington, Ozaukee, and Walworth. This year, he has reconsolidated the Republican base and improved at a minimum of 11.3% (Ozaukee) in
raw votes in these counties, and at a high of 17.3% (Walworth). President Trump has grown his share of raw votes in Wisconsin by a minimum
of 4.1% (Menominee) in all counties, and at a high of 24.8% (Kenosha).
Among the largest counties in the state, the largest spikes in growth since 2016 by the Democratic candidate came in St. Croix (32.7%), Ozaukee
(31.5%), Waukesha (31.1%), Washington (27.7%), placing them ahead of President Obama’s total of votes in those counties in 2008, a year in

247

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 4 Document 1-17

which he won the state by 13.91%. This could be feasible if the inverse pattern of “one party up, one party down” were present, suggesting the
transfer of voters from one party to the next, but President Trump has also greatly overperformed his 2016 vote totals and does not exhibit the
collapse in support seen by Democrats in 2012 and 2016, especially in known Republican strongholds. While it is plausible that Democrats
should add votes in those counties based on observed party registration trends in the Philadelphia area, it is unfathomable that those counties
would overperform their 2008 Obama vote numbers by such margins, while still adding substantial increases in raw votes to President Trump in
2020.
Despite ranking 67th in the state in percentage increase in voter registrations, Milwaukee County increased its share of Democratic votes by 9.8%,
even as President Trump increased by 6.6% while supposedly securing a higher share of minority votes than any Republican since 1960. Biden’s
total is nearly equal to Obama’s 2008 performance and reverses a massive loss of Democratic votes in 2016 in a post-Obama environment,
despite a decreasing voter roll (more than 3% decrease in registrations since 2016). Strangely, Milwaukee’s turnout dwarfs other regional
counterparts like Cleveland, Gary, and Indianapolis. This county is reported to have had many flagrant abuses of transparency regulations and is
also known to have reported results without observation in the early morning hours of November 4, 2020, which was just enough to overcome a
once formidable lead in the state by President Trump. The best course of action in Milwaukee is to recanvass and audit every mail-in and
absentee ballot for massive fraud. The trend in Cleveland, Detroit, Milwaukee, and Philadelphia recently has suggested decreasing vote totals
from one election to the next and is supported by the aforementioned significant decrease in the voter rolls in Milwaukee. This year’s reported
vote totals necessitate and improbable turnout level and suggest illegality in reporting and mail balloting.
All counties showing two consecutive cycles of inverse party trend (Republican up twice, Democrat down twice), with Democrats substantially
up this year, may be subject to counting errors, or “glitches,” like those reported in Antrim County, Michigan, or even recently in Rock County,
Wisconsin. These voting machines and their associated software should be audited and examined by coding professionals, especially if the recent
newsworthy events regarding corrupted voting software are widespread. It is highly possible that tampered or corrupted software in known
Trump strongholds may be responsible for reducing margins of raw vote victory in counties that have massively left the Democratic Party since
2008.
The entire vote in Wisconsin is suspect against recent trends and should be subject to recanvass and audit, not just a recount of hundreds of
thousands of illegal ballots. It appears that the major case in the state is that in spite of substantially growing his vote share in strong-Trump
counties, and surging in votes in urban and suburban counties, Trump’s margin is substantially limited, even after two consecutive inverse party
trends. In urban or suburban areas, Democratic vote share is soaring to record numbers, even over Obama’s totals after a 13.91% win, all while
Trump surges in votes in those counties as well. Urban areas have issues with transparency and should be fully audited for mail and absentee
fraud.

248

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 4 Document 1-17

250

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 28 Document 1-18

252

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 28 Document 1-18

253

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 28 Document 1-18

255

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 28 Document 1-18

256

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 28 Document 1-18

257

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 28 Document 1-18

259

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 28 Document 1-18

260

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 28 Document 1-18

261

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 28 Document 1-18

262

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 28 Document 1-18

263

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 28 Document 1-18

264

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 28 Document 1-18

266

Case 2:20-cv-01771-PP Filed 12/01/20 Page 18 of 28 Document 1-18

267

Case 2:20-cv-01771-PP Filed 12/01/20 Page 19 of 28 Document 1-18

268

Case 2:20-cv-01771-PP Filed 12/01/20 Page 20 of 28 Document 1-18

269

Case 2:20-cv-01771-PP Filed 12/01/20 Page 21 of 28 Document 1-18

270

Case 2:20-cv-01771-PP Filed 12/01/20 Page 22 of 28 Document 1-18

271

Case 2:20-cv-01771-PP Filed 12/01/20 Page 23 of 28 Document 1-18

272

Case 2:20-cv-01771-PP Filed 12/01/20 Page 24 of 28 Document 1-18

276

Case 2:20-cv-01771-PP Filed 12/01/20 Page 28 of 28 Document 1-18

277

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 3 Document 1-19

278

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 3 Document 1-19

279

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 3 Document 1-19

Declaration of
Pursuant to 28 U.S.C Section 1746,
make the following
declaration.
1. I am over the age of 21 years and I am under no legal disability, which would prevent me
from giving this declaration.
2. I was an electronic intelligence analyst under 305th Military Intelligence with experience
gathering SAM missile system electronic intelligence. I have extensive experience as a white
hat hacker used by some of the top election specialists in the world. The methodologies I
have employed represent industry standard cyber operation toolkits for digital forensics and
OSINT, which are commonly used to certify connections between servers, network nodes
and other digital properties and probe to network system vulnerabilities.
3. I am a US citizen and I reside

location in the United States of America.

4. Whereas the Dominion and Edison Research systems exist in the internet of things, and
whereas this makes the network connections between the Dominion, Edison Research and
related network nodes available for scanning,
5. And whereas Edison Research’s primary job is to report the tabulation of the count of the
ballot information as received from the tabulation software, to provide to Decision HQ for
election results,
6. And whereas Spiderfoot and Robtex are industry standard digital forensic tools for evaluation
network security and infrastructure, these tools were used to conduct public security scans of
the aforementioned Dominion and Edison Research systems,
7. A public network scan of Dominionvoting.com on 2020-11-08 revealed the following interrelationships and revealed 13 unencrypted passwords for dominion employees, and 75
hashed passwords available in TOR nodes:

1

280

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 17 Document 1-20

8. The same public scan also showed a direct connection to the group in Belgrade as
highlighted below:

9. A cursory search on LinkedIn of “dominion voting” on 11/19/2020 confirms the numerous
employees in Serbia:

3

282

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 17 Document 1-20

10. An additional search of Edison Research on 2020-11-08 showed that Edison Research has an
Iranian server seen here:

Inputting the Iranian IP into Robtex confirms the direct connection into the “edisonresearch”
host from the perspective of the Iranian domain also. This means that it is not possible that the
connection was a unidirectional reference.

A deeper search of the ownership of Edison Research “edisonresearch.com” shows a connection
to BMA Capital Management, where shareofear.com and bmacapital.com are both connected to
edisonresearch.com via a VPS or Virtual Private Server, as denoted by the “vps” at the start of
the internet name:

4

283

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 17 Document 1-20

Dominionvoting is also dominionvotingsystems.com, of which there are also many more
examples, including access of the network from China. The records of China accessing the server
are reliable.

5

284

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 17 Document 1-20

6

285

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 17 Document 1-20

11. BMA Capital Management is known as a company that provides Iran access to capital
markets with direct links publicly discoverable on LinkedIn (found via google on
11/19/2020):
7

286

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 17 Document 1-20

This Dominion partner domain “dvscorp” also includes an auto discovery feature, where new innetwork devices automatically connect to the system. The following diagram shows some of the
related dvscopr.com mappings, which mimic the infrastructure for Dominion and are an obvious
typo derivation of the name. Typo derivations are commonly purchased to catch redirect traffic
and sometimes are used as honeypots. The diagram shows that infrastructure spans multiple
different servers as a methodology.

9

288

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 17 Document 1-20

The above diagram shows how these domains also show the connection to Iran and other
places, including the following Chinese domain, highlighted below:

15. The auto discovery feature allows programmers to access any system while it is connected to
the internet once it’s a part of the constellation of devices (see original Spiderfoot graph).
16. Dominion Voting Systems Corporation in 2019 sold a number of their patents to China (via
HSBC Bank in Canada):

10

289

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 17 Document 1-20

11

290

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 17 Document 1-20

12

291

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 17 Document 1-20

Of particular interest is a section of the document showing aspects of the nature of the patents
dealing with authentication:

17. Smartmatic creates the backbone (like the cloud). SCYTL is responsible for the security
within the election system.

13

292

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 17 Document 1-20

18. In the GitHub account for Scytl, Scytl Jseats has some of the programming necessary to
support a much broader set of election types, including a decorator process where the data is
smoothed, see the following diagram provided in their source code:

14

293

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 17 Document 1-20

19. Unrelated, but also a point of interest is CTCL or Center for Tech and Civic Life funded by
Mark Zuckerberg. Within their github page (https://github.com/ctcl), one of the programmers
holds a government position. The Bipcoop repo shows tanderegg as one of the developers,
and he works at the Consumer Financial Protection Bureau:

15

294

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 17 Document 1-20

20. As seen in included document titled
“AA20-304AIranian_Advanced_Persistent_Threat_Actor_Identified_Obtaining_Voter_Registration_Data
” that was authored by the Cybersecurity & Infrastructure Security Agency (CISA) with a
Product ID of AA20-304A on a specified date of October 30, 2020, CISA and the FBI
reports that Iranian APT teams were seen using ACUTENIX, a website scanning software, to
find vulnerabilities within Election company websites, confirmed to be used by the Iranian
APT teams buy seized cloud storage that I had personally captured and reported to higher
authorities. These scanning behaviors showed that foreign agents of aggressor nations had
access to US voter lists, and had done so recently.
21. In my professional opinion, this affidavit presents unambiguous evidence that Dominion
Voter Systems and Edison Research have been accessible and were certainly compromised
by rogue actors, such as Iran and China. By using servers and employees connected with
rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, these organizations neglectfully allowed foreign adversaries to access data
16

295

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 17 Document 1-20

and intentionally provided access to their infrastructure in order to monitor and manipulate
elections, including the most recent one in 2020. This represents a complete failure of their
duty to provide basic cyber security. This is not a technological issue, but rather a
governance and basic security issue: if it is not corrected, future elections in the United States
and beyond will not be secure and citizens will not have confidence in the results.
I declare under penalty of perjury that the forgoing is true and correct to the best of my
knowledge. Executed this November 23th, 2020.

17

296

Case 2:20-cv-01771-PP Filed 12/01/20 Page 17 of 17 Document 1-20

297

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 37 Document 1-21

Pro V & V and that expired on Feb 24, 2017. No other certification has been located.

9. Section 231(b) of the Help America Vote Act (HAVA) of 2002 (42 U.S.C. §15371(b))
requires that the EAC provide for the accreditation and revocation of accreditation of
independent, non-federal laboratories qualified to test voting systems to Federal standards.
Generally, the EAC considers for accreditation those laboratories evaluated and
recommended by the National Institute of Standards and Technology (NIST) pursuant to
HAVA Section 231(b)(1). However, consistent with HAVA Section 231(b)(2)(B), the
Commission may also vote to accredit laboratories outside of those recommended by NIST
upon publication of an explanation of the reason for any such accreditation.

298

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 37 Document 1-21

10.
11. VSTL’s are VERY important because equipment vulnerabilities allow for deployment of
algorithms and scripts to intercept, alter and adjust voting tallies.
12. There are only TWO accredited VSTLs (VOTING SYSTEM TEST LABORATORIES). In
order to meet its statutory requirements under HAVA §15371(b), the EAC has developed the EAC’s
Voting System Test Laboratory Accreditation Program. The procedural requirements of the program
are established in the proposed information collection, the EAC Voting System Test Laboratory
Accreditation Program Manual. Although participation in the program is voluntary, adherence to
the program’s procedural requirements is mandatory for participants. The procedural requirements of
this Manual will supersede any prior laboratory accreditation requirements issued by the EAC. This
manual shall be read in conjunction with the EAC’s Voting System Testing and Certification
Program Manual (OMB 3265-0019).

299

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 37 Document 1-21

13.

300

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 37 Document 1-21

14.

301

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 37 Document 1-21

15.

302

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 37 Document 1-21

16.

303

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 37 Document 1-21

17.
18. Pro V& V and SLI Gaming both lack evidence of EAC Accreditation as per the Voting System
Testing and Certification Manual.

304

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 37 Document 1-21

19. Pro V& V is owned and Operated by Jack Cobb. Real name is Ryan Jackson Cobb. The company
ProV&V was founded and run by Jack Cobb who formerly worked under the entity of Wyle
Laboratories which is an AEROSPACE DEFENSE CONTRACTING ENTITY. The address
information on the EAC, NIST and other entities for Pro V& V are different than that of what is on
ProV&V website. The EAC and NIST (ISO CERT) issuers all have another address.

305

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 37 Document 1-21

20. VSTLs are the most important component of the election machines as they examine the use
of COTS (Commercial Off–The-Shelf)
21. “Wyle became involved with the testing of electronic voting systems in the early 1990’s and
has tested over 150 separate voting systems. Wyle was the first company to obtain
accreditation by the National Association of State Election Directors (NASED). Wyle is
accredited by the Election Assistance Commission (EAC) as a Voting System Testing
Laboratory (VSTL). Our scope of accreditation as a VSTL encompasses all aspects of the
hardware and software of a voting machine. Wyle also received NVLAP accreditation to
ISO/IEC 17025:2005 from NIST.” Testimony of Jack Cobb 2009
22. COTS are preferred by many because they have been tried and tested in the open market and
are most economic and readily available. COTS are also the SOURCE of vulnerability
therefore VSTLs are VERY important. COTS components by voting system machine
manufacturers can be used as a “Black Box” and changes to their specs and hardware make
up change continuously. Some changes can be simple upgrades to make them more efficient
in operation, cost efficient for production, end of life (EOL) and even complete reworks to
meet new standards. They key issue in this is that MOST of the COTS used by Election
Machine Vendors like Dominion, ES&S, Hart Intercivic, Smartmatic and others is that such
manufacturing for COTS have been outsourced to China which if implemented in our
Election Machines make us vulnerable to BLACK BOX antics and backdoors due to
hardware changes that can go undetected. This is why VSTL’s are VERY important.
23. The proprietary voting system software is done so and created with cost efficiency in mind
and therefore relies on 3rd party software that is AVAILABLE and HOUSED on the
HARDWARE. This is a vulnerability. Exporting system reporting using software like
Crystal Reports, or PDF software allows for vulnerabilities with their constant updates.
24. As per the COTS hardware components that are fixed, and origin may be cloaked under
proprietary information a major vulnerability exists since once again third-party support
software is dynamic and requires FREQUENT updates. The hardware components of the
computer components, and election machines that are COTS may have slight updates that
can be overlooked as they may be like those designed that support the other third -party
software. COTS origin is important and the US Intelligence Community report in 2018
verifies that.
25. The Trump Administration made it clear that there is an absence of a major U.S. alternative
to foreign suppliers of networking equipment. This highlights the growing dominance of

306

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 37 Document 1-21

Chinese manufacturers like Huawei that are the world’s LARGEST supplier of telecom and
other equipment that endangers national security.
26. China, is not the only nation involved in COTS provided to election machines or the
networking but so is Germany via a LAOS founded Chinese linked cloud service company
that works with SCYTL named Akamai Technologies that have offices in China and are
linked to the server that Dominion Software.

307

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 37 Document 1-21

27.
28. L3 Level Communications is federal contractor that is partially owned by foreign lobbyist
George Soros. An article that AP ran in 2010 – spoke out about the controversy of this that
has been removed. (LINK) “As for the company’s other political connections, it also appears
that none other than George Soros, the billionaire funder of the country’s liberal political
infrastructure, owns 11,300 shares of OSI Systems Inc., the company that owns Rapiscan.
Not surprisingly, OSI’s stock has appreciated considerably over the course of the year. Soros
certainly is a savvy investor.” Washington Examiner re-write.

308

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 37 Document 1-21

29.

309

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 37 Document 1-21

30.
31. L-3 Communication Systems-East designs, develops, produces and integrates
communication systems and support equipment for space, air, ground, and naval
applications, including C4I systems and products; integrated Navy communication systems;
integrated space communications and RF payloads; recording systems; secure
communications, and information security systems. In addition, their site claims that
MARCOM is an integrated communications system and The Marcom® is the foundation of
the Navy’s newest digital integrated voice / data switching system for affordable command
and control equipment supporting communications and radio room automation. The
MarCom® uses the latest COTS digital technology and open systems standards to offer the
command and control user a low cost, user friendly, solution to the complex voice, video
and data communications needs of present and future joint / allied missions. Built in
reliability, rugged construction, and fail-safe circuits ensure your call and messages will go
through. Evidently a HUGE vulnerability.

310

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 37 Document 1-21

32. Michigan’s government site is thumped off Akamai Technologies servers which are housed
on TELIA AB a foreign server located in Germany.
33. Scytl, who is contracted with AP that receives the results tallied BY Scytl on behalf of
Dominion – During the elections the AP reporting site had a disclaimer.
AP – powered by SCYTL.

311

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 37 Document 1-21

34. “Scytl was selected by the Federal Voting Assistance Program of the U.S. Department of
Defense to provide a secure online ballot delivery and onscreen marking systems under a
program to support overseas military and civilian voters for the 2010 election cycle and
beyond. Scytl was awarded 9 of the 20 States that agreed to participate in the program (New
York, Washington, Missouri, Nebraska, Kansas, New Mexico, South Carolina, Mississippi
and Indiana), making it the provider with the highest number of participating States.” PDF
35. According to DOMINION : 1.4.1Software and Firmware The software and firmware
employed by Dominion D-Suite 5.5-Aconsists of 2 types, custom and commercial off the
shelf (COTS). COTS applications were verified to be pristine or were subjected to source
code review for analysis of any modifications and verification of meeting the pertinent
standards.
36. The concern is the HARDWARE and the NON – ACCREDITED VSTLs as by their own
admittance use COTS.
37. The purpose of VSTL’s being accredited and their importance in ensuring that there is no
foreign interference/ bad actors accessing the tally data via backdoors in equipment
software. The core software used by ALL SCYTL related Election Machine/Software
manufacturers ensures “anonymity” .
38. Algorithms within the area of this “shuffling” to maintain anonymity allows for setting
values to achieve a desired goal under the guise of “encryption” in the trap-door.
39. The actual use of trapdoor commitments in Bayer-Groth proofs demonstrate the implications
for the verifiability factor. This means that no one can SEE what is going on during the
process of the “shuffling” therefore even if you deploy an algorithms or manual scripts to
fractionalize or distribute pooled votes to achieve the outcome you wish – you cannot prove
they are doing it! See STUDY : “The use of trapdoor commitments in Bayer-Groth proofs
and the implications for the verifiability of the Scytl-SwissPost Internet voting system”
40. Key Terms
41. UNIVERSAL VERIFIABILITY: Votes cast are the votes counted and integrity of the vote is
verifiable (the vote was tallied for the candidate selected) . SCYTL FAILS UNIVERSAL
VERIFIABILITY because no mathematical proofs can determine if any votes have been
manipulated.
42. INDIVIDUAL VERIFIABILITY: Voter cannot verify if their ballot got correctly counted. Like, if
they cast a vote for ABC they want to verify it was ABC. That notion clearly discounts the need for
anonymity in the first place.

312

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 37 Document 1-21

43. To understand what I observed during the 2020 I will walk you through the process of one ballot cast
by a voter.
44. STEP 1 |Config Data | All non e-voting data is sent to Scytl (offshore) for configuration of data. All
e-voting is sent to CONFIGURATION OF DATA then back to the e-voting machine and then to the
next phase called CLEANSING. CONCERNS: Here we see an “OR PROOF” as coined by
mathematicians – an “or proof” is that votes that have been pre-tallied parked in the system and the
algorithm then goes back to set the outcome it is set for and seeks to make adjustments if there is a
partial pivot present causing it to fail demanding manual changes such as block allocation and
narrowing of parameters or self-adjusts to ensure the predetermined outcome is achieved.
45. STEP 2|CLEANSING | The Process is when all the votes come in from the software run by
Dominion and get “cleansed” and put into 2 categories: invalid votes and valid votes.
46. STEP 3|Shuffling /Mixing | This step is the most nefarious and exactly where the issues arise and
carry over into the decryption phase. Simply put, the software takes all the votes, literally mixes them
a and then re-encrypts them. This is where if ONE had the commitment key- TRAPDOOR KEY –
one would be able to see the parameters of the algorithm deployed as the votes go into this mixing
phase, and how algorithm redistributes the votes.
47. This published PAPER FROM University College London depicts how this shuffle works. In
essence, when this mixing/shuffling occurs, then one doesn’t have the ability to know that vote
coming out on the other end is actually their vote; therefore, ZERO integrity of the votes when
mixed.

313

Case 2:20-cv-01771-PP Filed 12/01/20 Page 17 of 37 Document 1-21

314

Case 2:20-cv-01771-PP Filed 12/01/20 Page 18 of 37 Document 1-21

“Generators” and therefore together build “commitments.”

54. Scytl and Dominion have an agreement – only the two would know the parameters. This means that
access is able to occur through backdoors in hardware if the parameters of the commitments are
known in order to alter the range of the algorithm deployed to satisfy the outcome sought in the case
of algorithm failure.
55. Trapdoor is a cryptotech term that describes a state of a program that knows the commitment
parameters and therefore is able change the value of the commitments however it likes. In other
words, Scytl or anyone that knows the commitment parameters can take all the votes and give
them to any one they want. If they have a total of 1000 votes an algorithm can distribute them
among all races as it deems necessary to achieve the goals it wants. (Case Study: Estonia)

315

Case 2:20-cv-01771-PP Filed 12/01/20 Page 19 of 37 Document 1-21

56.
57. Within the trapdoor this is how the algorithm behaves to move the goal posts in elections without
being detected by this proof . During the mixing phase this is the algorithm you would use to

316

Case 2:20-cv-01771-PP Filed 12/01/20 Page 20 of 37 Document 1-21

“reallocate” votes via an algorithm to achieve the goal set.

58. STEP 4|Decryption would be the decryption phase and temporary parking of vote tallies before
reporting. In this final phase before public release the tallies are released from encrypted format into
plain text. As previously explained, those that know the trapdoor can easily change any votes that the
randomness is applied and used to generate the tally vote ciphertext. Thus in this case, Scytl who is
the mixer can collude with their vote company clients or an agency (-------) to change votes and get
away with it. This is because the receiver doesn’t have the decryption key so they rely solely on Scytl
to be honest or free from any foreign actors within their backdoor or the Election Company (like
Dominion) that can have access to the key.
59. In fact, a study from the University of Bristol made claim that interference can be seen when there is
a GREAT DELAY in reporting and finalizing numbers University of Bristol : How not to Prove
Yourself: Pitfalls of the Fiat-Shamir Heuristic and Applications to Helios
60. “Zero-knowledge proofs of knowledge allow a prover to convince a verifier that she holds
information satisfying some desirable properties without revealing anything else.” David Bernhard,
Olivier Pereira,and Bogdan Warinschi.

317

Case 2:20-cv-01771-PP Filed 12/01/20 Page 21 of 37 Document 1-21

61. Hence, you can’t prove anyone manipulated anything. The TRAP DOOR KEY HOLDERS can offer
you enough to verify to you what you need to see without revealing anything and once again
indicating the inability to detect manipulation. ZERO PROOF of INTEGRITY OF THE VOTE.
62. Therefore, if decryption is challenged, the administrator or software company that knows the trap
door key can provide you proof that would be able to pass verification (blind). This was proven to be
factually true in the case study by The University of Melbourne in March. White Hat Hackers
purposely altered votes by knowing the parameters set in the commitments and there was no way to
prove they did it – or any way to prove they didn’t.
63. IT’S THE PERFECT THREE CARD MONTY. That’s just how perfect it is. They fake a proof of
ciphertexts with KNOWN “RANDOMNESS” .This rolls back to the integrity of the VOTE. The
vote is not safe using these machines not only because of the method used for ballot “cleansing” to
maintain anonymity but the EXPOSURE to foreign interference and possible domestic bad actors.
64. In many circumstances, manipulation of the algorithm is NOT possible in an undetectable fashion.
This is because it is one point heavy. Observing the elections in 2020 confirm the deployment of an
algorithm due to the BEHAVIOR which is indicative of an algorithm in play that had no pivoting
parameters applied.
65. The behavior of the algorithm is that one point (B) is the greatest point within the allocated set. It is
the greatest number within the A B points given. Point A would be the smallest. Any points outside
the A B points are not necessarily factored in yet can still be applied.
66. The points outside the parameters can be utilized to a certain to degree such as in block allocation.
67. The algorithm geographically changed the parameters of the algorithm to force blue votes and
ostracize red.
68. Post block allocation of votes the two points of the algorithm were narrowed ensuring a BIDEN win
hence the observation of NO Trump Votes and some BIDEN votes for a period of time.

318

Case 2:20-cv-01771-PP Filed 12/01/20 Page 22 of 37 Document 1-21

69.

319

Case 2:20-cv-01771-PP Filed 12/01/20 Page 23 of 37 Document 1-21

70. Gaussian Elimination without pivoting explains how the algorithm would behave and the election
results and data from Michigan confirm FAILURE of algorithm.

71. The “Digital Fix” observed with an increased spike in VOTES for Joe Biden can be determined as
evidence of a pivot. Normally it would be assumed that the algorithm had a Complete Pivot.
Wilkinson’s demonstrated the guarantee as :

72.
73. Such a conjecture allows the growth factor the ability to be upper bound by values closer to n.
Therefore, complete pivoting can’t be observed because there would be too many floating points.
Nor can partial as the partial pivoting would overwhelm after the “injection” of votes. Therefore,
external factors were used which is evident from the “DIGITAL FIX”
74. Observing the elections, after a review of Michigan’s data a spike of 54,199 votes to Biden. Because
it is pushing and pulling and keeping a short distance between the 2 candidates; but then a spike,
which is how an algorithm presents; - and this spike means there was a pause and an insert was
made, where they insert an algorithm. Block spikes in votes for JOE BIDEN were NOT paper

320

Case 2:20-cv-01771-PP Filed 12/01/20 Page 24 of 37 Document 1-21

ballots being fed or THUMB DRIVES. The algorithm block adjusted itself and the PEOPLE were
creating the evidence to BACK UP the block allocation.
75. I have witnessed the same behavior of the election software in countries outside of the United States
and within the United States. In -------, the elections conducted behaved in the same manner by
allocating BLOCK votes to the candidate “chosen” to win.
76. Observing the data of the contested states (and others) the algorithm deployed is identical to that
which was deployed in 2012 providing Barack Hussein Obama a block allocation to win the 2012
Presidential Elections.
77. The algorithm looks to have been set to give Joe Biden a 52% win even with an initial 50K+ vote
block allocation was provided initially as tallying began (as in case of Arizona too). In the am of
November 4, 2020 the algorithm stopped working, therefore another “block allocation” to remedy
the failure of the algorithm. This was done manually as ALL the SYSTEMS shut down
NATIONWIDE to avoid detection.

78.
79. In Georgia during the 2016 Presidential Elections a failed attempt to deploy the scripts to block
allocate votes from a centralized location where the “trap-door” key lay an attempt by someone using

321

Case 2:20-cv-01771-PP Filed 12/01/20 Page 25 of 37 Document 1-21

the DHS servers was detected by the state of GA. The GA leadership assumed that it was “Russians”
but later they found out that the IP address was that of DHS.
80. In the state of Wisconsin, we observed a considerable BLOCK vote allocation by the algorithm at the
SAME TIME it happened across the nation. All systems shut down at around the same time.

81.
82. In Wisconsin there are also irregularities in respect to BALLOT requests. (names AND address
Hidden for privacy)

83.

322

Case 2:20-cv-01771-PP Filed 12/01/20 Page 26 of 37 Document 1-21

84.
85. I can personally attest that in 2013 discussions by the Obama / Biden administration were being had
with various agencies in the deployment of such election software to be deployed in ----- in 2013.
86. On or about April 2013 a one year plan was set to fund and usher elections in -----.
87. Joe Biden was designated by Barack Hussein Obama to ensure the ----- accepted assistance.
88. John Owen Brennan and James (Jim) Clapper were responsible for the ushering of the intelligence
surrounding the elections in -----.
89. Under the guise of Crisis support the US Federal Tax Payers funded the deployment of the election
software and machines in ------ signing on with Scytl.

90.

323

Case 2:20-cv-01771-PP Filed 12/01/20 Page 27 of 37 Document 1-21

91. Right before the ----- elections it was alleged that CyberBerkut a pro-Russia group infiltrated --central election computers and deleted key files. These actions supposedly rendered the votetallying system inoperable.
92. In fact, the KEY FILES were the Commitment keys to allow Scytl to tally the votes rather than the
election machines. The group had disclosed emails and other documents proving that their election
was rigged and that they tried to avoid a fixed election.
93. The elections were held on May 25, 2014 but in the early AM hours the election results were
BLOCKED and the final tally was DELAYED flipping the election in favor of -----.
94. The claim was that there was a DDoS attack by Russians when in actual fact it was a mitigation of
the algorithm to inject block votes as we observed was done for Joe Biden because the KEYS were
unable to be deployed. In the case of -----, the trap-door key was “altered”/deleted/ rendered
ineffective. In the case of the US elections, representatives of Dominion/ ES&S/ Smartmatic/ Hart
Intercivic would have to manually deploy them since if the entry points into the systems seemed to
have failed.
95. The vote tallying of all states NATIONWIDE stalled and hung for days – as in the case of Alaska
that has about 300K registered voters but was stuck at 56% reporting for almost a week.
96. This “hanging” indicates a failed deployment of the scripts to block allocate remotely from one
location as observed in ------ on May 26, 2014.
97. This would justify the presence of the election machine software representatives making physical
appearances in the states where the election results are currently being contested.
98. A Dominion Executive appeared at the polling center in Detroit after midnight.
99. Considering that the hardware of the machines has NOT been examined in Michigan since 2017 by
Pro V& V according to Michigan’s own reporting. COTS are an avenue that hackers and bad actors
seek to penetrate in order to control operations. Their software updates are the reason vulnerabilities
to foreign interference in all operations exist.
100.

The importance of VSTLs in underrated to protect up from foreign interference by way of open

access via COTS software. Pro V& V who’s EAC certification EXPIRED on 24 FEB 2017 was
contracted with the state of WISCONSIN.
101.

In the United States each state is tasked to conduct and IV& V (Independent Verification and

Validation) to provide assurance of the integrity of the votes.
102.

If the “accredited” non-federal entities have NOT received EAC accreditation this is a failure of

the states to uphold their own states standards that are federally regulated.
103.

In addition, if the entities had NIST certificates they are NOT sufficing according the HAVA

ACT 2002 as the role of NIST is clear.
104.

Curiously, both companies PRO V&V and SLI GAMING received NIST certifications

OUTSIDE the 24 month scope.

324

Case 2:20-cv-01771-PP Filed 12/01/20 Page 28 of 37 Document 1-21

105.

PRO V& V received a NIST certification on 26MAR2020 for ONE YEAR. Normally the NIST

certification is good for two years to align with that of EAC certification that is good for two years.

106.
107.

The last PRO V& V EAC accreditation certificate (Item 8) of this declaration expired in

February 2017 which means that the IV & V conducted by Michigan claiming that they were
accredited is false.
108.

The significance of VSTLs being accredited and examining the HARDWARE is key. COTS

software updates are the avenues of entry.
109.

As per DOMINION’S own petition, the modems they use are COTS therefore failure to have an

accredited VSTL examine the hardware for points of entry by their software is key.

325

Case 2:20-cv-01771-PP Filed 12/01/20 Page 29 of 37 Document 1-21

110.
111.

For example and update of Verizon USB Modem Pantech undergoes multiple software updates a

year for it’s hardware. That is most likely the point of entry into the systems.
112.

During the 2014 elections in ---- it was the modems that gave access to the systems where the

commitment keys were deleted.
113.

SLI Gaming is the other VSTL “accredited” by the EAC BUT there is no record of their

accreditation. In fact, SLI was NIST ISO Certified 27 days before the election which means that PA
IV&V was conducted without NIST cert for SLI being valid.

326

Case 2:20-cv-01771-PP Filed 12/01/20 Page 30 of 37 Document 1-21

114.
115.

In fact SLI was NIST ISO Certified for less than 90 days.

116.

I can personally attest that high-level officials of the Obama/Biden administration and large

private contracting firms met with a software company called GEMS which is ultimately the
software ALL election machines run now running under the flag of DOMINION.
117.

GEMS was manifested from SOE software purchased by SCYTL developers and US Federally

Funded persons to develop it.
118.

The only way GEMS can be deployed across ALL machines is IF all counties across the nation

are housed under the same server networks.
119.

GEMS was tasked in 2009 to a contractor in Tampa, Fl.

120.

GEMS was also fine-tuned in Latvia, Belarus, Serbia and Spain to be localized for EU

deployment as observed during the Swissport election debacle.
121.

John McCain’s campaign assisted in FUNDING the development of GEMS web monitoring via

WEB Services with 3EDC and Dynology.

327

Case 2:20-cv-01771-PP Filed 12/01/20 Page 31 of 37 Document 1-21

122.
123.
124.

AKAMAI Technologies services SCYTL.

328

Case 2:20-cv-01771-PP Filed 12/01/20 Page 32 of 37 Document 1-21

125.

AKAMAI Technologies Houses ALL foreign government sites. (Please see White Paper by

Akamai.)
126.

AKAMAI Technologies houses ALL .gov state sites. (ref Item 123 Wisconsin.gov Example)

127.
128.

Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES based out of

GERMANY.
129.

Using AKAMAI Technologies is allowing .gov sites to obfuscate and mask their systems by way

of HURRICANE ELECTRIC (he.net) Kicking it to anonymous (AKAMAI Technologies) offshore
servers.

130.
131.

AKAMAI Technologies has locations around the world.

132.

AKAMAI Technologies has locations in China (ref item 22)

133.

AKAMAI Technologies has locations in Iran as of 2019.

134.

AKAMAI Technologies merged with UNICOM (CHINESE TELECOMM) in 2018.

135.

AKAMAI Technologies house all state .gov information in GERMANY via TELIA AB.

329

Case 2:20-cv-01771-PP Filed 12/01/20 Page 33 of 37 Document 1-21

136.

In my professional opinion, this affidavit presents unambiguous evidence:

137.

That there was Foreign interference, complicit behavior by the previous administrations from

1999 up until today to hinder the voice of the people and US persons knowingly and willingly colluding
with foreign powers to steer our 2020 elections that can be named in a classified setting.
138.

Foreign interference is present in the 2020 election in various means namely,

139.

Foreign nationals assisted in the creation of GEMS (Dominion Software Foundation)

140.

Akamai Technologies merged with a Chinese company that makes the COTS components of the

election machines providing access to our electronic voting machines.
141.

Foreign investments and interests in the creation of the GEMS software.

142.

US persons holding an office and private individuals knowingly and willingly oversaw fail safes

to secure our elections.
143.

The EAC failed to abide by standards set in HAVA ACT 2002.

144.

The IG of the EAC failed to address complaints since their appointment regarding vote integrity

145.

Christy McCormick of the EAC failed to ensure that EAC conducted their duties as set forth by

HAVA ACT 2002
146.

Both Patricia Layfield (IG of EAC) and Christy McCormick (Chairwoman of EAC) were

appointed by Barack Hussein Obama and have maintained their positions since then.
147.

The EAC failed to have a quorum for over a calendar year leading to the inability to meet the

standards of the EAC.
148.

AKAMAI Technologies and Hurricane Electric raise serious concerns for NATSEC due to their

ties with foreign hostile nations.
149.

For all the reasons above a complete failure of duty to provide safe and just elections are

observed.
150.

For the people of the United States to have confidence in their elections our cybersecurity

standards should not be in the hands of foreign nations.
151.

Those responsible within the Intelligence Community directly and indirectly by way of

procurement of services should be held accountable for assisting in the development, implementation and
promotion of GEMS.
152.

GEMS ------- General Hayden.

153.

In my opinion and from the data and events I have observed --------------------- with the

assistance of SHADOWNET under the guise of L3-Communications which is MPRI. This is also
confirmed by us.army.mil making the statement that shadownet has been deployed to 30 states which all

330

Case 2:20-cv-01771-PP Filed 12/01/20 Page 34 of 37 Document 1-21

happen to be using Dominion Machines.

154.

Based on my research of voter data – it appears that there are approximately 23,000 residents of

a Department of Corrections Prison with requests for absentee ballot in Wisconsin. We are currently
reviewing and verifying the data and will supplement.

331

Case 2:20-cv-01771-PP Filed 12/01/20 Page 35 of 37 Document 1-21

155.

332

Case 2:20-cv-01771-PP Filed 12/01/20 Page 36 of 37 Document 1-21

I declare under penalty of perjury that the forgoing is true and correct to the best of my knowledge.
Executed this November 29th, 2020.

333

Case 2:20-cv-01771-PP Filed 12/01/20 Page 37 of 37 Document 1-21

DECLARATION OF RONALD WATKINS
I, Ronald Watkins, hereby state the following:
1.

My name is Ronald Watkins. I am a United States citizen currently residing in Japan.

2.

I am an adult of sound mind. All statements in this declaration are based on my personal
knowledge and are true and correct. I am making this statement voluntarily and on my own
initiative. I have not been promised, nor do I expect to receive, anything in exchange for my
testimony and giving this statement. I have no expectation of any profit or reward and
understand that there are those who may seek to harm me for what I say in this statement.

3.

I make this declaration because I want to alert the public and let the world know the truth
about the insecurity of actual voting tabulation software used in various states for
administering the 2020 Presidential and other elections. The software is designed, whether
with malicious intent or through plain incompetence, in such a way so as to facilitate digital
ballot stuffing via simple vote result manipulation and abuse of the digital adjudication
manual review system. Specifically, the Dominion Democracy Suite both enables voter
fraud by unethical officials out to undermine the will of the people and facilitates tabulation
errors by honest officials making simple, nearly untraceable mistakes.

4.

I believe voting is a fundamental manifestation of our right to self-government, including
our right to free speech. Under no circumstance should we allow a conspiracy of people
and companies to subvert and destroy our most sacred rights.

5.

I am a network and information security expert with nine years of experience as a network
and information defense analyst and a network security engineer. In my nine years of
network and information security experience, I have successfully defended large websites
and complex networks against powerful cyberattacks. I have engaged in extensive training
and education and learned through experience how to secure websites and networks.

6.

In preparation for making this declaration, I have reviewed extensive technical materials
relating to the Dominion Voting Democracy Suite, including those cited herein.

7.

The Dominion Voting Systems ImageCast Central system is a software and hardware
workstation system designed to work with just a common “Windows 10 Pro”12 computer

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p3, [online document],
https://www.sos.state.co.us/pubs/elections/VotingSystems/DVS-documentation/UG-ICCUserGuide-5-11-CO.pdf (Accessed November 23, 2020)
https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/elections/Voting
Systems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11-CO.pdf [archive]

1

Georgia State Certification Testing, Dominion Voting Systems D-Suite 5.5-A Voting System,
p5, table 2-1, [online document]
https://sos.ga.gov/admin/uploads/Dominion_Test_Cert_Report.pdf (accessed November, 23,

2

334

1
Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 6 Document 1-22

paired via data cable3 to an off- the-shelf document scanner4 “for high speed scanning and
counting of paper ballots.”5
8.

When bulk ballot scanning and tabulation begins, the “ImageCast Central” workstation
operator will load a batch of ballots into the scanner feed tray and then start the scanning
procedure within the software menu.6 The scanner then begins to scan the ballots which
were loaded into the feed tray while the “ImageCast Central” software application

2020),
https://web.archive.org/web/20201106055006/https://sos.ga.gov/admin/uploads/Dominion_Test_
Cert_Report.pdf [archive].
Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p2, s2.1, [online
document, https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020) https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].

3

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p6,
1.1.E.1, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech
_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/sos/071B77
00117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive]

4

Commonwealth of Pennsylvania Department of State, Report Concerning the Examination
Results of Dominion Voting Systems Democracy Suite 5.5A p6, s2.4, [online document],
https://www.dos.pa.gov/VotingElections/Documents/Voting%20Systems/Dominion%20Democr
acy%20Suite%205.5A/Dominion%20Democracy%20Suite%20Final%20Report%20scanned%20with%20signature%
20011819.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201016161321/https://www.dos.pa.gov/VotingElections/Docume
nts/Voting%20Systems/Dominion%20Democracy%20Suite%205.5-A/Dominion%20Democracy
%20Suite%20Final%20Report%20scanned%20with%20signature%20011819.pdf [archive]

5

Dominion Voting, ImageCast Central, p2, [online document],
https://www.edcgov.us/Government/Elections/Documents/ImageCast%20Central%20Brochure
%202018%20FINAL.pdf (accessed November 23, 2020)
https://web.archive.org/web/20201017175507/https://www.edcgov.us/Government/Elections/Do
cuments/ImageCast%20Central%20Brochure%202018%20FINAL.pdf [archive]

6

335

2
Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 6 Document 1-22

tabulates votes in real-time. Information about scanned ballots can be tracked inside the
“ImageCast Central” software application.7
9.

After all of the ballots loaded into the scanner's feed tray have been through the scanner,
the “ImageCast Central” operator will remove the ballots from the tray and then will have
the option to “Accept Batch” on the scanning menu.8 Accepting the batch saves the results
into the local file system within the “Windows 10 Pro” machine.9 Any “problem ballots”
that may need to be examined or adjudicated at a later time can be found as ballot scans
saved as image files into a standard Windows folder named “NotCastImages”.10 These
“problem ballots” are automatically detected during the scanning phase and digitally set
aside for manual review based on exception criteria.11 Examples of exceptions may include:
overvotes, undervotes, blank contests, blank ballots, write-in selections, and marginal

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].

7

Dominion Voting, ImageCast Central, [website], https://www.dominionvoting.com/imagecastcentral/ (Accessed November 23, 2020)
https://web.archive.org/web/20201101203418/https://www.dominionvoting.com/imagecastcentral/ [archive].

8

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].

9

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].
10

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p21,
1.3.B.6, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech
_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/sos/071B77
00117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive].
11

336

3
Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 6 Document 1-22

marks.”12 Customizable outstack conditions and marginal mark detection lets [Dominion's
Customers] decide which ballots are sent for Adjudication.13
10.

During the ballot scanning process, the “ImageCast Central” software will detect how
much of a percent coverage of the oval was filled in by the voter.14 The Dominion customer
determines the thresholds of which the oval needs to be covered by a mark in order to
qualify as a valid vote.1516 If a ballot has a marginal mark which did not meet the specific
thresholds set by the customer, then the ballot is considered a “problem ballot” and may
be set aside into a folder named “NotCastImages.”17 “The ImageCast Central's advanced

[11] MASTER SOLUTION PURCHASE AND SERVICES AGREEMENT BY AND
BETWEEN DOMINION VOTING SYSTEMS, INC. as Contractor, and SECRETARY OF
STATE OF THE STATE OF GEORGIA as State, p52, s1.3, [online document],
https://georgiaelections.weebly.com/uploads/1/0/8/5/108591015/contract.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201122213728/https://georgiaelections.weebly.com/uploads/1/0/8
/5/108591015/contract.pdf [archive].
12

Dominion Voting, ImageCast Central, [website], https://www.dominionvoting.com/imagecastcentral/ (Accessed November 23, 2020)
https://web.archive.org/web/20201101203418/https://www.dominionvoting.com/imagecastcentral/ [archive].
13

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p3,
1.1.A.22, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech
_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/sos/071B77
00117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive].
14

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, p19, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local
%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed November 23, 2020),
https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/calhouncountymi/
Clerk%20&%20Register%20of%20Deeds/local%20clerk%20resources/5_5_icc_operations_man
ual.pdf [archive].
15

IMAGECAST® CENTRAL Brochure, [website],
https://www.edcgov.us/Government/Elections/Documents/ImageCast%20Central%20Brochure
%202018%20FINAL.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201017175507/https://www.edcgov.us/Government/Elections/Do
cuments/ImageCast%20Central%20Brochure%202018%20FINAL.pdf [archive].
16

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
17

337

4
Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 6 Document 1-22

settings allow for adjustment of the scanning properties to “[set] the clarity levels at which
the ballot should be scanned at.” Levels can be set as a combination of brightness and
contrast values, or as a gamma value.”18
11.

Based on my review of these materials, I conclude the system is designed in such a way that
it allows a dishonest or otherwise unethical election administrator to creatively tweak the
oval coverage threshold settings and advanced settings on the ImageCast Central scanners
to set thresholds in such a way that a non-trivial amount of properly-marked ballots are
marked as “problem ballots” and sent to the “NotCastImages” folder.

12.

The administrator of the ImageCast Central work-station may view all images of scanned
ballots which were deemed “problem ballots” by simply navigating via the standard
“Windows File Explorer” to the folder named “NotCastImages” which holds ballot scans
of “problem ballots.”1920 Under this system, it is possible for an administrator of the
“ImageCast Central” workstation to view and delete any individual ballot scans from the
“NotCastImages” folder by simply using the standard Windows delete and recycle bin
functions provided by the Windows 10 Pro operating system. Adjudication is “the process
of examining voted ballots to determine, and, in the judicial sense, adjudicate voter
intent.”21

elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].
Dominion Voting, Democracy Suite®ImageCast® Central User Guide, pp20-21, s3.22,
[online document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].
18

Dominion Voting, Democracy Suite® Use Procedures, p433, F.3.11, [online document]
https://votingsystems.cdn.sos.ca.gov/vendors/dominion/ds510-use-proc-jan.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201101173723/https://votingsystems.cdn.sos.ca.gov/
vendors/dominion/ds510-use-proc-jan.pdf [archive].
19

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, p27, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local
%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed November 23, 2020),
https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/calhouncountymi/
Clerk%20&%20Register%20of%20Deeds/local%20clerk%20resources/5_5_icc_operations_man
ual.pdf [archive].
20

Dominion Voting, Democracy Suite® Use Procedures, p9, [online document]
https://votingsystems.cdn.sos.ca.gov/vendors/dominion/ds510-use-proc-jan.pdf (Accessed
November 23, 2020),
21

338

5
Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 6 Document 1-22

13.

Based on my review of these materials, I conclude that a biased poll worker without
sufficient and honest oversight could abuse the adjudication system to fraudulently switch
votes for a specific candidate.

14.

After the tabulation process, the ImageCast Central software saves a copy of the tabulation
results locally to the “Windows 10 Pro” machine's internal storage. The results data is
located in an easy-to-find path which is designed to easily facilitate the uploading of
tabulation results to flash memory cards. The upload process is just a simple copying of a
“Results” folder containing vote tallies to a flash memory card connected to the “Windows
10 Pro” machine. The copy process uses the standard drag-and-drop or copy/paste
mechanisms within “Windows File Explorer.”22 It is my conclusion that while this is a
simple procedure, the report results process is subject to user errors and is very vulnerable
to corrupt manipulation by a malicious administrator. It is my conclusion that, before
delivering final tabulation results to the county, it is possible for an administrator to
mistakenly copy the wrong “Results” folder or even maliciously copy a false “Results”
folder, which could contain a manipulated data set, to the flash memory card and deliver
those false “Results” as the outcome of the election.

I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct. Executed in Japan on November 24, 2020.

__________________________
Ronald Watkins

https://web.archive.org/web/20201101173723/https://votingsystems.cdn.sos.ca.gov/
vendors/dominion/ds510-use-proc-jan.pdf [archive].
Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, pp25-28, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local
%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed November 23,
2020),https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/calhouncoun
tymi/Clerk%20&%20Register%20of%20Deeds/local%20clerk%20resources/5_5_icc_operations
_manual.pdf [archive].
22

339

6
Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 6 Document 1-22

340

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 2 Document 1-23

341

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 2 Document 1-23

342

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 15 Document 1-24

343

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 15 Document 1-24

344

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 15 Document 1-24

345

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 15 Document 1-24

346

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 15 Document 1-24

347

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 15 Document 1-24

348

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 15 Document 1-24

349

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 15 Document 1-24

350

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 15 Document 1-24

351

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 15 Document 1-24

352

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 15 Document 1-24

353

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 15 Document 1-24

354

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 15 Document 1-24

355

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 15 Document 1-24

356

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 15 Document 1-24

357

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 12 Document 1-25

358

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 12 Document 1-25

359

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 12 Document 1-25

360

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 12 Document 1-25

361

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 12 Document 1-25

362

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 12 Document 1-25

363

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 12 Document 1-25

364

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 12 Document 1-25

365

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 12 Document 1-25

366

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 12 Document 1-25

367

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 12 Document 1-25

368

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 12 Document 1-25

Declaration of

Ph.D

November 30, 2020
Pursuant to 28 U.S.C Section 1746, I,
ing declaration.

, make the follow-

1. I am over the age of 21 years and I am under no legal disability, which
would prevent me from giving this declaration.
2.

has a Ph.D in Electrical Engineering from the University of California at Davis and a Masters degree in Mathematics from
the University of California at Berkeley. I have been employed, for over 28
years, in the signal processing and wireless signal processing domain, with
an emphasis on statistical signal processing. I have published numerous
journal and conference articles. Additionally, I have held Top Secret and
SAP clearances and I am an inventor of nearly 30 patents, one of which
has over 1000 citations in the field of MIMO communications (Multiple
Input Multiple Output).

3. I reside at

,

.

4. Given the data sources referenced in this document, I assert that in Georgia, Pennsylvania and the city of Milwaukee, a simple statistical model of
vote fraud is a better fit to the sudden jump in Biden vote percentages
among absentee ballots received later in the counting process of the 2020
presidential election. It is also a better fit when constrained to a single
large Metropolitan area such as Milwaukee..
5. Given the same data sources, I also assert that Milwaukee precincts exhibit statistical anomalies that are not normally present in fair elections..
The fraud model hypothesis in Milwaukee has a posterior probability of
100% to machine precision. This model predicts 105,639 fraudulent Biden
ballots in Milwaukee.
6. I assert that the data suggests aberrant statistical anomalies in the vote
counts in Michigan, when observed as a function of time.
Signature:

1

379

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 20 Document 1-27

Supporting evidence for the assertions in (4) and 5 is provided in the following pages.

1

Impact of Fraud on the Election

In the analysis that follows, it is possible to obtain rough estimates on how vote
fraud could possibly have effected the election. In Georgia, there is evidence
that votes were actually switched from Trump to Biden. As many as 51,110
Biden votes were fraudulent and as many as 51,110 votes could be added to
Trump. An audit to determine vote switching will be more difficult, since it
is likely the Trump ballots have been destroyed in Georgia, based on reports
of ballots being shredded there. If instead we presume that Bidens fraudulent
votes were simply added to the totals, then we estimate that 104,107 ballots
should be removed from Biden’s totals.
In Pennsylvania, from just one batch of absentee ballots, approximately
72668 of them are estimated to be fraudulent Biden votes. Our analysis of
Milwaukee shows that 105,639 Biden ballots could be fraudulent. Moreover
there is evidence of vote switching here, which might give as many as 42365
additional ballots to Trump, and remove the same from Biden.
Michigan yields an estimate of 237,140 fraudulent Biden votes added to
the total, using conservative estimates of the Biden percentage among the new
ballots.

2

Statistical Model

The simplest statistical model for computing the probabilities for an election
outcome is a binomial distribution, which assigns a probability p for a given person within the population to select a candidate. If we assume that each person
chooses their candidate independently, then we obtain the Binomial distribution
in the form,
N −k
P (k|N ) ≡ N Ck pk (1 − p)
,
(1)
where P (k|N ) is the probability that you observe k votes for a candidate in
a population of N voters, and where N Ck is the number of ways to choose k
people out of a group of N people.
For larger N, the binomial distribution can be approximated by a Gaussian
distribution, which is used in the election fraud analysis in [1]. The chief reason
for this is the difficulty of computing P (k|N ) for large N and k. However this
problem can be overcome by computing the probabilities in the log domain and
using the log beta function to compute N Ck .
For this analysis it is more useful to compute the probabilities as a function
of f the observed fraction of the candidate’s votes. In this formulation we
have k = N f, and N − k = N (1 − f ) , and therefore we define the fractional
probability as,
N (1−f )
BN (f ) ≡ N CN f pN f (1 − p)
.
(2)
2

380

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 20 Document 1-27

2.1

Fraud Model

To model voting fraud we assume a fixed fraction α of votes are given to the
cheater. The pool of available voters who actually voted is now N (1 − α) . The
fraction who actually voted for the cheater is given by f − α. The probability
that the fraction f voters reported for the cheater, with the fraction α stolen,
can therefore be written as,
CN,α (f ) ≡ BN (1−α) (f − α) .

(3)

This is similar to the fraud model used in the election fraud analysis given
in [1]. We use the Binomial distribution directly, rather than the Gaussian
distribution, since it should be more accurate for small N, k or f.

2.2

Posterior Probability of Fraud Model

A hypothesis test can now be set up between the standard voting statistics of
(2) vs the statistics of the fraud model (3). If we use Bayesian inference we can
compute an estimate of the posterior probability of the fraud model. This can
be written as,
CN,α (f )pF
,
P (F |f ) =
CN,α (f )pF + BN (f ) (1 − pF )
where pF is the prior probability of fraud. In our investigation we assume fraud
is unlikely and set pF = 0.01.

3

Analysis of Absentee Ballots in the 2020 Election

For this analysis we extracted data from the all_states_timeseries.csv file,
which can be found at the internet url: https://wiki.audittheelection.
com/index.php/Datasets. We look at the absentee ballot results near the beginning of the time series and then compare it to the end or the middle of the
period, after a sufficient enough ballots were added.
For the models in Section 2 we assign the probability p of a Biden vote using
the final data. This assumption is actually more favorable to the cheater. As
mentioned earlier we set the prior probability of fraud to pF = 0.01, and the
cheating fraction, α, is set to α = f − p, where f is the observed Biden fraction
in the newly added ballots. This isolates the statistics of the added ballots from
the final observed statistics.
We focus on the absentee ballots, because they are dominated by large democratic cities and there is no obvious reason why those statistics should change
appreciably over time. Furthermore it should be noted that the start time for
this data, mid day Nov. 4., was well after some of the larger absentee ballot
dumps occured.

3

381

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 20 Document 1-27

Figure 1: Reported Biden Fraction In Illinois vs Time

3.1

Control Case Illinois

We choose Illinois as a control case, since it has a significant number of absentee
ballots that were counted later and provides a fairly clean baseline. The reported
Biden fraction vs time is given in Figure 1.
As we can see there is not much change in the Biden statistics from the
initial 601,714 absentee ballots when compared with the 54,117 ballots that
were added. This is further shown by the bar chart in Figure 2.
Using our formula for the posterior probability of fraud in (3) we obtain the
probability that the fraud model is correct of 6.5%. This lends good support to
the idea that the Illinois absentee ballots were counted fairly.

3.2

Analysis of Georgia Absentee Ballots

The Georgia absentee ballot count started at 3,701,005 and 303,988 ballots
were added. The Biden fraction among absentee ballots as a function of time
is shown in Figure (3). This plot shows a statistical abnormality in that the

4

382

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 20 Document 1-27

Figure 2: Before and Added Biden Fraction

5

383

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 20 Document 1-27

Figure 3: Georgia Absentee Ballots vs Time: (Biden Fraction)
Biden fraction appears to always be increasing. This is statistically unlikely
and is not typically seen in fair elections. Normally you would see a mixture of
votes of Biden and his opponents, and would see random deviation around the
asymptote.
We investigate this phenomenon more fully in Figure (4). The added ballots have a Biden percentage of around 70%, while the initial statitics were at
50%. This is a very large jump for such a large sample size and seems very
unlikely. Indeed the probability that the fraud model is correct is 100%, up to
the precision of double floating point arithmetic.
Assuming that the prior absentee ballot distribution is the correct one, we
can form a simple prediction for how many of Biden’s ballots were fraudulent.
Let N1 = 303, 988, the number of ballots added, and let B = 189, 497 be the
number of Biden votes in this new batch. If the fraction of Biden votes should
actually be f = 0.509. Let x be the proposed number of fraudulent Biden votes,

6

384

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 20 Document 1-27

Figure 4: Before and After Biden Fraction in Georgia

7

385

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 20 Document 1-27

then we have,
B−x
=f
N1 − x
B − N1 f
x=
.
1−f

(4)

In the case that votes were actually switched from Trump to Biden, then
the formula becomes,
B−x
=f
N1
x = B − N1 f
This would suggest that 104,107 ballots were fraudulently manufactured for
Biden. If we presume that actually those ballots were switched from Trump
to Biden then as many as 19% of the new absentee ballots for Biden were
fraudulent, which totals around 51,110 ballots that should be removed from
Biden’s totals and added to Trump. We shall see in Section 6, that there is
substantial evidence that some Trump votes were actually switched to Biden
votes.

3.3

Analysis of Pennsylvania Absentee Ballots

The Pennsylvania absentee ballot count started at 785,473 and 319,741 ballots
were added at 39 hours after the start of the data record. The Biden fraction
among absentee ballots as a function of time is shown in Figure (5). This plot
shows some oddities in that the Biden fraction fluctuates with large deviations.
In Figure (6) we see the initial Biden percentage compared with the Biden
percentage of the added ballots over the first 39 hours. The added ballots have
a Biden percentage of around 83%, while the initial statistics were at 78%. This
is a very large jump for such a large sample size and seems very unlikely. Indeed
the probability that the fraud model is correct is 100%, up to the precision of
double floating point arithmetic.
If we just examine the initial large batch of votes among the absentee ballots,
we see an unexplained jump of 5% for Biden. Although it is likely that most
of the fraud, if any, occurred earlier in the vote count, just this batch of ballots
suggests that approximately 72668 Biden ballots are fraudulent. If we presume
that the votes were stolen from Trumps votes, then 15987 Biden ballots are
fraudulent and should be added to Trump’s total.

4

Analysis of Milwaukee County in Wisconsin

We now switch our analysis to a data set that contains precinct data for Milwaukee county. The data was obtained from the twitter acount of @shylockh,
who derived his sources from the New York Times and in some cases from
8

386

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 20 Document 1-27

Figure 5: Pennsylvania Absentee Ballots vs Time: (Biden Fraction)
the unofficial precinct reports from the Wisconsin elections commision website.
We examine vote percentages for ballots added between Wednesday morning,
11/04/2020 and Thursday night 11/05/2020.
This data set gives the total vote count by party affiliation. Because the data
set is confined to Milwaukee, we can assume that the statistics should not be
time varying. The voting pool here is highly partisan in favor of democrats and
we don’t expect any significant difference in the voting percentage, especially
since a large number of absentee ballots were already counted by Wednesday
morning.

4.1

Analysis of Milwaukee County Democrat results

The percentage of democrat voters increases by 15% among the ballots added
on Wednesday and Thursday. On Wednesday morning Milwaukee had received
165,776 ballots. By Thursday evening 458,935 ballots were received, adding
293,159 ballots.
In Figure 7 we see the large deviation in democrat percentage between the
Wednesday morning and those added by Thursday evening. This too causes the
posterior probability of the fraud model to be 100% to machine precision.
Assuming that there was fraud, we estimate that 105,639 fraudulent Biden
ballots were added between Wednesday and Thursday of 11/05/2020 in Milwaukee alone. However as we shall see below, many of these votes may well have
been switched from Trump to Biden, which would also give Trump an additional

9

387

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 20 Document 1-27

Figure 6: Before and After Biden Fraction in Pennsylvania

10

388

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 20 Document 1-27

Figure 7: Before and After Democrat Fraction in Milwaukee

11

389

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 20 Document 1-27

Figure 8: Baseline Cumulative Fractions Sorted by Precinct Size
42365 votes and remove 42365 votes from Biden.

4.2

Candidate Percentages Sorted by Ward Size

Another useful tool for evaluating fraud is to look at the cumulative vote percentages sorted by an independent input factor. An easy factor to use is ward
or precinct size. This concept was used throughout the report on voter irregularities in [2]. In that report there was an anomalous dependency on precinct
size in many of the 2016 primary elections. The larger precincts had introduced
the use of voting machines. But one could also theorize the opportunity for
cheaters to cheat in small precincts, where there may be less oversight.
Normally we would expect the cumulative vote percentage to converge to an
asymptote, and bounce around the mean until convergence. An example of this
can be found from the 2000 Florida Democratic presidential primary between
Gore and Bradley. This is shown in Figure 8, and is taken from [2].
However when one sorts the Milwaukee, Thursday night data, by precinct

12

390

Case 2:20-cv-01771-PP Filed 12/01/20 Page 12 of 20 Document 1-27

Figure 9: Milwaukee Democrat Ballots Percentage vs Ward Size
size, you will see trendlines that do not converge to an asymptote, as shown
in Figure 9. It appears that smaller precincts almost uniformly have higher
Democrat percentages. There is no obvious reason for this. It was certainly not
seen in the control case in Figure 8. Furthermore the third party percentages
quickly converge to their asymptote as would be expected in a fair election. One
possible model for this would be vote switching from Trump to Biden, which
would show up more strongly in the smaller precincts.

5

Analysis of Third Party Vote Count

Third party voters offer another way to examine a possible fraud mechanism.
Votes could either be switched from third party candidates to the cheater, or
fraudulent ballots that are added to benefit the cheater, may not include third
party choices. For the control example, we look at absentee ballots in the state of
Massachusetts. In Massachusetts the initial absentee ballot count was 117,618,
and the number of added absentee ballots is 10,281.
The reported 3rd party percentage of absentee ballots vs time in Massachusetts is shown in Figure 10 and the comparison of the inital and added 3rd
party ballots in MA is shown in Figure 11. There is only a small change in party
preference, relative to the size of the added ballots. Therefore the probability
of the fraud model is only 22%.
When we look at the total 3rd party percentages in Milwaukee, between
Wednesday morning and Thursday night, we see a significant drop from 1.9
percent to 1.4% for the newly added ballots. But this is among 293,159 added

13

391

Case 2:20-cv-01771-PP Filed 12/01/20 Page 13 of 20 Document 1-27

Figure 10: MA 3rd Party Absentee Votes vs Time

14

392

Case 2:20-cv-01771-PP Filed 12/01/20 Page 14 of 20 Document 1-27

Figure 11: MA 3rd Party Percentage Initial and Added

15

393

Case 2:20-cv-01771-PP Filed 12/01/20 Page 15 of 20 Document 1-27

Figure 12: Milwaukee 3rd Party Percentages between Wednesday and Added
ballots. This is illustrated in Figure 12. Again in this case the fraud model has
a posterior probability of 100% to machine precision.

6

Analysis of Fulton and DeKalb Counties in
Georgia

We perform a precinct level analysis of Fulton and DeKalb counties in Georgia
based on an aggregate data set likely culled from the New York Times. The
Fulton data was collected on 11/08/2020 and the DeKalb data was collected on
11/09/2020. As in Milwaukee we look at the cumulative vote percentages as a
function of precinct size. A plot of this for DeKalb county is shown in Figure
13.
Although there are somewhat concerning trendlines in the beginning, after
the size 600 precinct mark, thereafter the overall picture is what one would expect of an election where the voter preferences are not dependent on precinct
size. Both DeKalb and Fulton counties are in predominantly urban Atlanta,
16

394

Case 2:20-cv-01771-PP Filed 12/01/20 Page 16 of 20 Document 1-27

Figure 13: Dekalb County Absentee Ballots: Percentages vs Precinct Size
neighbor one another, and have similar voting preferences across precincts.
DeKalb county is still suspect, however, due to the irregularites observed prior
to the Ward 600 mark.
A different story emerges when we plot the absentee vote percentages for
Fulton county as a function of precinct size, as can be seen in Figure 14. Here the
trendlines for the Democrat and Republican percentages are quite pronounced,
amounting to a difference of 8 percent from the halfway mark.
We divide the Fulton county data into a group of smaller precincts and larger
precincts. One group has precincts less than 308 and another larger than 308.
The total absentee ballots for the small group is 24,575, and the large group
is 120,029. The small group has a Democrat percentage of 85% and the large
group has a percentage of 77%, for a change of 8%. The fraud model is preferred
in this scenario again with probability of 100% to machine precision.
One might presume that small precincts generally favor Democrats over large
precincts, biasing the results. However take a closer look at the Libertarian
party results in Fulton county in Figure 15. The percentages are exactly what
we would expect if there were no bias in precinct size. The percentages bounce
around a mean, not trending in any direction.
So if there were a bias favoring the democrats in small precincts, we would
expect that to effect both the Republican and Libertarian totals. However it appears to only effect Republican totals, as if the Republican ballots were switched
over to Democrat in a higher percentage in the smaller precincts. Indeed if a
fixed number of ballots are switched in each district, it would have a larger
effect in the smaller districts and then show up as trend lines in these percentage plots. At a minimum the data suggests a statistical anomaly that is not
normally present in a fair election.

17

395

Case 2:20-cv-01771-PP Filed 12/01/20 Page 17 of 20 Document 1-27

Figure 14: Fulton County Absentee Ballots: Percentages vs Precinct Size

Figure 15: Fulton County Absentee Ballots: Libertarian Percentage vs Precinct
Size

18

396

Case 2:20-cv-01771-PP Filed 12/01/20 Page 18 of 20 Document 1-27

Figure 16: Michigan Vote Percentage vs Time

7

Michigan Analysis

We now due a time series analysis for Michigan. The data was culled from Edison
Research. We first show, Trump, Biden and 3rd party voting percentages vs
hours after the start of the election in Figure 16. The third party votes shows
the proper convergence to an asymptote that we would expect from the law of
large numbers. However the Trump and Biden percentages are vastly different
You can see large discrete jumps in the percentages as very large Biden ballot
dumps occur over time. You also see that the Biden percentages are mostly
always increasing after hour 27, which is statistically unlikely in a fair election.
Note also that almost a million of the ballots are received by hour 27, and
we use this as our starting point. At that point we have a total of 970,119
votes cast. At the end of 167 hours we have 5,531,222 votes cast. At our initial
point the Biden percentage is 38%, but the new ballots have a Biden percentage
totaling 53% as seen in Figure 17. The fraud model has posterior likelihood of
100% to machine precision.
For Michigan we compute the estimated amount of fraudulent Biden ballots
conservatively, assuming that the 50.5 percent seen at the end of the count
should have been the correct percentage among the newly added ballots. From
this and (4) we obtain an estimate of 237,140 fraudulent votes added for Biden.

19

397

Case 2:20-cv-01771-PP Filed 12/01/20 Page 19 of 20 Document 1-27

Figure 17: Biden Percentage Before and Added

References
[1] Peter Klimek, Yuri Yegorov, Rudolf Hanel, and Stefan Thurner. Statistical
detection of systematic election irregularities. 2, 2.1
[2] lulu Fries’dat and Anselmo Sampietro. An electoral system in crisis. http:
//www.electoralsystemincrisis.org/. 4.2

20

398

Case 2:20-cv-01771-PP Filed 12/01/20 Page 20 of 20 Document 1-27

JS 44 Reverse (Rev 10/20)

INSTRUCTIONS FOR ATTORNEYS COMPLETING CIVIL COVER SHEET FORM JS 44
Authority For Civil Cover Sheet
The JS 44 civil cover sheet and the information contained herein neither replaces nor supplements the filings and service of pleading or other papers as
required by law, except as provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is
required for the use of the Clerk of Court for the purpose of initiating the civil docket sheet. Consequently, a civil cover sheet is submitted to the Clerk of
Court for each civil complaint filed. The attorney filing a case should complete the form as follows:
I.(a)
(b)
(c)

Plaintiffs-Defendants. Enter names (last, first, middle initial) of plaintiff and defendant. If the plaintiff or defendant is a government agency, use
only the full name or standard abbreviations. If the plaintiff or defendant is an official within a government agency, identify first the agency and then
the official, giving both name and title.
County of Residence. For each civil case filed, except U.S. plaintiff cases, enter the name of the county where the first listed plaintiff resides at the
time of filing. In U.S. plaintiff cases, enter the name of the county in which the first listed defendant resides at the time of filing. (NOTE: In land
condemnation cases, the county of residence of the "defendant" is the location of the tract of land involved.)
Attorneys. Enter the firm name, address, telephone number, and attorney of record. If there are several attorneys, list them on an attachment, noting
in this section "(see attachment)".

II.

Jurisdiction. The basis of jurisdiction is set forth under Rule 8(a), F.R.Cv.P., which requires that jurisdictions be shown in pleadings. Place an "X"
in one of the boxes. If there is more than one basis of jurisdiction, precedence is given in the order shown below.
United States plaintiff. (1) Jurisdiction based on 28 U.S.C. 1345 and 1348. Suits by agencies and officers of the United States are included here.
United States defendant. (2) When the plaintiff is suing the United States, its officers or agencies, place an "X" in this box.
Federal question. (3) This refers to suits under 28 U.S.C. 1331, where jurisdiction arises under the Constitution of the United States, an amendment
to the Constitution, an act of Congress or a treaty of the United States. In cases where the U.S. is a party, the U.S. plaintiff or defendant code takes
precedence, and box 1 or 2 should be marked.
Diversity of citizenship. (4) This refers to suits under 28 U.S.C. 1332, where parties are citizens of different states. When Box 4 is checked, the
citizenship of the different parties must be checked. (See Section III below; NOTE: federal question actions take precedence over diversity
cases.)

III.

Residence (citizenship) of Principal Parties. This section of the JS 44 is to be completed if diversity of citizenship was indicated above. Mark this
section for each principal party.

IV.

Nature of Suit. Place an "X" in the appropriate box. If there are multiple nature of suit codes associated with the case, pick the nature of suit code
that is most applicable. Click here for: Nature of Suit Code Descriptions.

V.

Origin. Place an "X" in one of the seven boxes.
Original Proceedings. (1) Cases which originate in the United States district courts.
Removed from State Court. (2) Proceedings initiated in state courts may be removed to the district courts under Title 28 U.S.C., Section 1441.
Remanded from Appellate Court. (3) Check this box for cases remanded to the district court for further action. Use the date of remand as the filing
date.
Reinstated or Reopened. (4) Check this box for cases reinstated or reopened in the district court. Use the reopening date as the filing date.
Transferred from Another District. (5) For cases transferred under Title 28 U.S.C. Section 1404(a). Do not use this for within district transfers or
multidistrict litigation transfers.
Multidistrict Litigation – Transfer. (6) Check this box when a multidistrict case is transferred into the district under authority of Title 28 U.S.C.
Section 1407.
Multidistrict Litigation – Direct File. (8) Check this box when a multidistrict case is filed in the same district as the Master MDL docket.
PLEASE NOTE THAT THERE IS NOT AN ORIGIN CODE 7. Origin Code 7 was used for historical records and is no longer relevant due to
changes in statue.

VI.

Cause of Action. Report the civil statute directly related to the cause of action and give a brief description of the cause. Do not cite jurisdictional
statutes unless diversity. Example: U.S. Civil Statute: 47 USC 553 Brief Description: Unauthorized reception of cable service.

VII.

Requested in Complaint. Class Action. Place an "X" in this box if you are filing a class action under Rule 23, F.R.Cv.P.
Demand. In this space enter the actual dollar amount being demanded or indicate other demand, such as a preliminary injunction.
Jury Demand. Check the appropriate box to indicate whether or not a jury is being demanded.

VIII. Related Cases. This section of the JS 44 is used to reference related pending cases, if any. If there are related pending cases, insert the docket
numbers and the corresponding judge names for such cases.
Date and Attorney Signature. Date and sign the civil cover sheet.

400

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 2 Document 1-28

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN and DERRICK VAN
ORDEN,
v.

CASE NO. 2:20-cv-1771

Plaintiffs.

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARLC
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.

PLAINTIFFS’ MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF

Pursuant to FRCP 65 and Civil L. R. 7, COMES NOW Plaintiffs, William Feehan and
Derrick Van Orden, by and through their undersigned counsel, and file this Emergency Motion
for Temporary Restraining Order and Permanent Injunctive Relief.

The specific relief requested by Plaintiff is set forth in the proposed
form of Order is attached. The basis for the Motion is set forth in Plaintiffs Memorandum
submitted in support.

1

401

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 2 Document 2

Respectfully submitted, this 30th day of November 2020.
/s Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
2911 Turtle Creek Blvd, Suite 300
Dallas, Texas 75219
*Application for admission forthcoming

CERTIFICATE OF SERVICE
This is to certify that I have on this day e-filed the foregoing Plaintiffs’ Motion To File
Affidavits Under Seal and For In Camera Review with the Clerk of Court using the CM/ECF
system, and that I have delivered the filing to the Defendants by email and FedEx at the
following addresses:

2

402

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 2 Document 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN and DERRICK VAN
ORDEN,
v.

CASE NO. 2:20-cv-1771

Plaintiffs.

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARLC
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.

PLAINTIFFS’ MEMORANDUM IN SUPPORT OF
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF

FACTS
The facts relevant to this motion are set forth in the Complaint and its accompanying
exhibits, all of which are respectfully incorporated herein by reference. We present only a
summary.
After a general election and recount, Joe Biden has been declared the winner of Georgia’s
General Election for President by a difference of 20,585 votes, while Plaintiff Derrick Van Orden
lost his race for the House of Representatives seat for Wisconsin’s Third Congressional District
1

403

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 11 Document 3

by approximately 10,000 votes. But the vote count certified by defendants on November 30,
2020 fails to recognize the votes are steeped in fraud. Tens of thousands of votes counted toward
Mr. Biden’s final tally were the product of fraudulent, illegal, ineligible and outright fictitious
ballots. Plaintiffs support this claim through the evidence laid out in the Complaint which
includes the following conclusions:
The Complaint details a pervasive pattern of illegal conduct by Defendants where they
systematically ignored, or acted in direct contravention of, the express requirements of
Wisconsin Election Code provisions specifically intended to prevent voter fraud such as voter
Photo ID, witness, signature, eligibility and address verification requirements, supported by
witness affidavits and even written guidance from Defendant Wisconsin Elections Commission
(“WEC”) instructing election workers to violate the Wisconsin Election Code. See Compl.,
Section I.
In Section II and III of the Complaint, Plaintiffs demonstrate through statistical analysis
of voting results and technical analysis of voting machines and software that each of several
distinct categories of voting fraud or batches of fraudulent ballots were larger than Biden’s
20,585 margin.
The Affidavit of Russell James Ramsland, Jr. first examines the widely reported and
“statistically impossible” Biden “spike” on November 4 where Biden, trailing Trump by a few
percent, suddenly received 143,379 votes in a single five-minute interval, causing his relatively
flat vote tally to make a vertical jump up and over Trump to take the lead by about one percent.
See Compl., Ex. 17 ¶13. Another red flag identified by Mr. Ramsland is the historically
unprecedented turnout levels (not just for Wisconsin, but for anywhere except for countries like
North Korea): 69 out of 72 Wisconsin counties had “voter turnout figures higher than 80%, a

2

404

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 11 Document 3

threshold generally considered to be the maximum expected,” 59 were above 90%, and two were
nearly 200% or more. Id. ¶15. Mr. Ramsland concludes “to a reasonable degree of professional
certainty” that the Biden spike included at least 119,430 illegal votes for Biden, while the total
illegal votes from the fraudulent turnout figures was at least 384,085. Id. ¶14.
The Complaint provides testimony from several other experts who provided the estimates
for illegal votes that should be discarded due to other categories of voting fraud:
•

The report of William M. Briggs, Ph.D. finding that the average sum of two types
of errors or fraud (either by Wisconsin election officials or third parties) – (1)
absentee voters who were recorded as receiving ballots without requesting them
and (2) absentee voters who returned ballots that were recorded as unreturned –
was 29,594 votes (or nearly 31% of total). (See id., Ex 2).

•

Matt Braynard used the National Change of Address database to identify votes
by persons that moved out of state or subsequently registered to vote in another
state for the 2020 election, and found a total of 6,966 ineligible votes. (See id.,
Ex 3).

•

A separate analysis by Mr. Braynard of the likely number of votes that were
improperly relying on the “indefinitely confined” exemption to voter ID to be
96,437 (See id., Ex 3).

•

Another expert witness, whose testimony has been redacted for his safety,
estimates excess votes arising from the statistically significant outperformance
of Dominion machines on behalf of Joe Biden to be 181,440. (See id., Ex 3)

Thus each of these sources of fraudulent votes (with the exception of the still substantial
number of illegal out-of-state voters) is larger than Biden’s margin of victory, and if any of these
categories of illegal voters were thrown out, it would change the result of the election, and give
President Trump a second term – and Plaintiff Van Order a first term as a Congressman.
Section III of the Complaint also provides testimony from experts regarding the security
flaws in Wisconsin voting machines, in particular, Dominion Voting Systems (“Dominion”) that
allow Dominion, as well domestic and foreign actors, to alter, destroy, manipulate or exfiltrate
ballot and other voting data, and potentially to do so without a trace due to Dominion’s
3

405

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 11 Document 3

unprotected logs. For example, the Complaint includes an analysis of the Dominion software
system by a former US Military Intelligence expert concludes that the system and software have
been accessible and were certainly compromised by rogue actors, such as Iran and China. (See
Compl., Ex.105). By using servers and employees connected with rogue actors and hostile
foreign influences combined with numerous easily discoverable leaked credentials, Dominion
neglectfully allowed foreign adversaries to access data and intentionally provided access to their
infrastructure in order to monitor and manipulate elections, including the most recent one in
2020. The substantial likelihood that hostile foreign governments, with or without active
collusion or collaboration with the Defendants, is a separate and independent ground to grant the
declaratory and injunctive relief requested in the Complaint and this Motion.

DISCUSSION
Plaintiffs Have Standing
Plaintiff William Feehan, is a registered Wisconsin voter and a nominee of the
Republican Party to be a Presidential Elector on behalf of the State of Wisconsin. The Plaintiff
Derrick Van Orden was the 2020 Republican nominee for Wisconsin’s Third Congressional
District Seat for the United States House of Representatives. As a candidate for elective office,
each Plaintiff “have a cognizable interest in ensuring that the final vote tally reflects the legally
valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury to
candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
of Secretary of State in implementing or modifying State election laws); see also McPherson v.
Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000)
(per curiam).
4

406

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 11 Document 3

Plaintiffs are Entitled to Injunctive Relief.
“To obtain a preliminary injunction, a plaintiff must show three things: (1) without such
relief, he will suffer irreparable harm before his claim is finally resolved; (2) he has no adequate
remedy at law; and (3) he has some likelihood of success on the merits. Harlan v. Scholz, 866
F.3d 754, 758 (7th Cir. 2017) (citing Girl Scouts of Manitou Council, Inc. v. Girl Scouts of U.S.
of Am., Inc., 549 F.3d 1079, 1086 (7th Cir. 2008).” “If the plaintiff can do that much, the court
must then weigh the harm the plaintiff will suffer without an injunction against the harm the
defendant will suffer with one.” Harlin, 866 F.3d at 758 (citing Ty, Inc. v. Jones Grp., Inc., 237
F.3d 891, 895 (7th Cir. 2001). In addition, the court must ask whether the preliminary injunction
is in the public interest. Jones v. Markiewicz-Qualkinbush, 842 F.3d 1053, 1058 (7th Cir. 2016).
All elements are met here.
“When the state legislature vests the right to vote for President in its people, the right to
vote as the legislature has prescribed is fundamental; and one source of its fundamental nature
lies in the equal weight accorded to each vote and the equal dignity owed to each voter.” Bush v.
Gore, 531 U.S. 98, 104 (2000) (emphasis added). The evidence shows not only that Defendants
failed to administer the November 3, 2020 election in compliance with the manner prescribed by
the Georgia legislature, but that Defendants committed a scheme and artifice to fraudulently and
illegally manipulate the vote count to make certain the election of Joe Biden as President of the
United States. This conduct violated Plaintiffs’ equal protection and due process rights as well
their rights under Wisconsin law.
Plaintiffs have a substantial likelihood of success.
The Plaintiff does not need to demonstrate a likelihood of absolute success on the merits.
“Instead, [it] must only show that [its] chances to succeed on his claims are ‘better than negligible.’

5

407

Case 2:20-cv-01771-PP Filed 12/01/20 Page 5 of 11 Document 3

” Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1046 (7th Cir. 2017).
(quoting Cooper v. Salazar, 196 F.3d 809, 813 (7th Cir. 1999)). “This is a low threshold,” id., that
Plaintiffs have easily passed.
Through detailed fact and expert testimony including documentary evidence contained in
the Complaint and its exhibits, Plaintiffs have made a compelling showing that Defendants’
intentional actions jeopardized the rights of Wisconsin citizens to select their leaders under the
process set out by the Wisconsin Legislature through the commission of election frauds that
violated state laws and the Equal Protection Clause in the United States Constitution. And pursuant
to 42 U.S.C. § 1983, plaintiffs must demonstrate by a preponderance of the evidence that their
constitutional rights to equal protection or fundamental right to vote were violated. See, e.g.,
Radentz v. Marion Cty., 640 F.3d 754, 756-757 (7th Cir. 2011).
The tally of ballots certified by Defendants giving Mr. Biden the lead with 20,800 votes
cannot possibly stand in light of the thousands of illegal mail-in ballots that were improperly
counted and the vote manipulation caused by the Dominion software.
Plaintiffs’ equal protection claim is straightforward. The right of qualified citizens to
vote in a state election involving federal candidates is recognized as a fundamental right under
the Fourteenth Amendment of the United States Constitution. Harper v. Va. State Bd. of
Elections, 383 U.S. 663, 665 (1966). See also Reynolds v. Sims, 377 U.S. 533, 554 (1964) (The
Fourteenth Amendment protects the “the right of all qualified citizens to vote, in state as well as
in federal elections.”). Indeed, ever since the Slaughter-House Cases, 83 U.S. 36 (1873), the
United States Supreme Court has held that the Privileges or Immunities Clause of the Fourteenth
Amendment protects certain rights of federal citizenship from state interference, including the
right of citizens to directly elect members of Congress. See Twining v. New Jersey, 211 U.S. 78,

6

408

Case 2:20-cv-01771-PP Filed 12/01/20 Page 6 of 11 Document 3

97 (1908) (citing Ex parte Yarbrough, 110 U.S. 651, 663-64 (1884)). See also Oregon v.
Mitchell, 400 U.S. 112, 148-49 (1970) (Douglas, J., concurring) (collecting cases).
The fundamental right to vote protected by the Fourteenth Amendment is cherished in our
nation because it “is preservative of other basic civil and political rights.” Reynolds, 377 U.S. at
562; League of Women Voters of Ohio v. Brunner, 548 F.3d 463,476 (6th Cir. 2008)
(“The right to vote is a fundamental right, preservative of all rights.”). Voters have a
“right to cast a ballot in an election free from the taint of intimidation and fraud,” Burson v.
Freeman, 504 U.S. 191, 211 (1992), and “[c]onfidence in the integrity of our electoral processes
is essential to the functioning of our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4
(2006) (per curiam).
“Obviously included within the right to [vote], secured by the Constitution, is the right of
qualified voters within a state to cast their ballots and have them counted” if they are validly cast.
United States v. Classic, 313 U.S. 299, 315 (1941). “[T]he right to have the vote counted” means
counted “at full value without dilution or discount.” Reynolds, 377 U.S. at 555, n.29 (quoting
South v. Peters, 339 U.S. 276, 279 (1950) (Douglas, J., dissenting)).
“Every voter in a federal . . . election, whether he votes for a candidate with little chance
of winning or for one with little chance of losing, has a right under the Constitution to have his
vote fairly counted, without its being distorted by fraudulently cast votes.” Anderson v. United
States, 417 U.S. 211, 227 (1974); see also Baker v. Carr, 369 U.S. 186, 208 (1962). Invalid or
fraudulent votes “debase[]” and “dilute” the weight of each validly cast vote. See Anderson, 417
U.S. at 227.
The right to an honest [count] is a right possessed by each voting elector, and to the
extent that the importance of his vote is nullified, wholly or in part, he has been injured in the

7

409

Case 2:20-cv-01771-PP Filed 12/01/20 Page 7 of 11 Document 3

free exercise of a right or privilege secured to him by the laws and Constitution of the United
States.” Anderson, 417 U.S. at 226 (quoting Prichard v. United States, 181 F.2d 326, 331 (6th
Cir.), aff'd due to absence of quorum, 339 U.S. 974 (1950)).
Practices that promote the casting of illegal or unreliable ballots or fail to contain basic
minimum guarantees against such conduct, can violate the Fourteenth Amendment by leading to
the dilution of validly cast ballots. See Reynolds, 377 U.S. at 555 (“[T]he right of suffrage can be
denied by a debasement or dilution of the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.”). States may not, by arbitrary action or
other unreasonable impairment, burden a citizen’s right to vote. See Baker v. Carr, 369 U.S. 186,
208 (1962) (“citizen’s right to a vote free of arbitrary impairment by state action has been
judicially recognized as a right secured by the Constitution”).
“Having once granted the right to vote on equal terms, the state may not, by later
arbitrary and disparate treatment, value one person’s vote over that of another.” Bush, 531 U.S. at
104-05. Among other things, this requires “specific rules designed to ensure uniform treatment”
in order to prevent “arbitrary and disparate treatment of voters.” Id. at 106-07; see also Dunn v.
Bloomstein, 405 U.S. 330, 336 (1972) (providing that each citizen “has a constitutionally
protected right to participate in elections on an equal basis with other citizens in the
jurisdiction”). Similarly, equal protection needs to be recognized in this case where many
Wisconsin’s citizens’ lawful votes remained uncounted, and many were diluted by unlawful
votes in violation of the Equal Protection clause.
The Plaintiffs will suffer Irreparable Harm
“Where, as here, plaintiff has demonstrated a likelihood of success on the merits as to a
constitutional claim, such an injury has been held to constitute irreparable harm.” Democratic
8

410

Case 2:20-cv-01771-PP Filed 12/01/20 Page 8 of 11 Document 3

Nat’l Comm. v. Bostelmann, 447 F.Supp.3d 757, 769 (W.D. Wis. 2020) (citing Elrod v. Burns,
427 U.S. 347, 373, 96 S.Ct. 2673, 49 L.Ed.2d 547 (1976) (where plaintiff had proven a
probability of success on the merits, the threatened loss of First Amendment freedoms
“unquestionably constitutes irreparable injury”); see also Preston v. Thompson, 589 F.2d 300,
303 n.4 (7th Cir. 1978) (“The existence of a continuing constitutional violation constitutes proof
of an irreparable harm.”).
Moreover, courts have specifically held that infringement on the fundamental right to
vote constitutes irreparable injury. See Obama for Am. v. Husted, 697 F.3d 423, 435 (6th Cir.
2012) (“A restriction on the fundamental right to vote ... constitutes irreparable injury.”);
Williams v. Salerno, 792 F.2d 323, 326 (2d Cir. 1986) (holding that plaintiffs “would certainly
suffer irreparable harm if their right to vote were impinged upon”).” \
“Additionally, traditional legal remedies would be inadequate, since infringement on a
citizens’ constitutional right to vote cannot be redressed by money damages.” Bostelmann, 447
F.Supp.3d at 769 (citing Christian Legal Soc'y v. Walker, 453 F.3d 853, 859 (7th Cir. 2006) (“The
loss of First Amendment freedoms is presumed to constitute an irreparable injury for which
money damages are not adequate.”); League of Women Voters of N. Carolina v. North Carolina,
769 F.3d 224, 247 (4th Cir. 2014) (“[O]nce the election occurs, there can be no do-over and no
redress.”).”
The Balance of Harms & Public Interest
Under Seventh Circuit law, a “sliding scale” approach is used for balancing of harms:
“[t]he more likely it is that [the movant] will win its case on the merits, the less the balance of
harms need weigh in its favor.” Girl Scouts of Manitou Council v. Girl Scouts of United States of
Am., Inc., 549 F.3d 1079, 1100 (7th Cir. 2008). Plaintiffs above have shown their strong
9

411

Case 2:20-cv-01771-PP Filed 12/01/20 Page 9 of 11 Document 3

likelihood of success on the merits above. The low costs to Defendants and high potential harm
to Plaintiffs make this a case with a substantial net harm that an immediate and emergency
injunctive relief can prevent.
In this regard, Plaintiffs would highlight a recent Eleventh Circuit decision addressed a
claim in 2018 related to Georgia’s voting system and Dominion Voting Systems that bears on the
likelihood of Plaintiffs’ success on the merits and the balance of harms in the absence of
injunctive relief:
In summary, while further evidence will be necessary in the future, the Court finds
that the combination of the statistical evidence and witness declarations in the record
here (and the expert witness evidence in the related Curling case which the Court
takes notice of) persuasively demonstrates the likelihood of Plaintiff succeeding on
its claims. Plaintiff has shown a substantial likelihood of proving that the Secretary's
failure to properly maintain a reliable and secure voter registration system has and
will continue to result in the infringement of the rights of the voters to cast their vote
and have their votes counted.
Common Cause Georgia v. Kemp, 347 F. Supp. 3d 1270, 1294-1295, (11th Cir. 2018).
Therefore, it is respectfully requested that the Court grant Plaintiffs’ Motion and enter the
proposed Order submitted therewith.
Respectfully submitted, this 30th day of November 2020.
/s Sidney Powell**
Sidney Powell PC
Texas Bar No. 16209700
(517) 763-7499
sidney@federalappeals.com
*Application for admission forthcoming

10

412

Case 2:20-cv-01771-PP Filed 12/01/20 Page 10 of 11 Document 3

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383

daneastman@me.com

11

413

Case 2:20-cv-01771-PP Filed 12/01/20 Page 11 of 11 Document 3

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN, DERRICK VAN
ORDEN,
Plaintiffs,
v.

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK L.
THOMSEN, MARGE BOSTELMAN, JULIE
M. GLANCEY, DEAN KNUDSON, ROBERT
F. SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official
capacity,
Defendants.
____________________________________________________________________________
PLAINTIFFS’ DISCLOSURE STATEMENT
____________________________________________________________________________
The undersigned, as counsel of record for Plaintiffs William Feehan and Derrick Van Orden
provide the following information in compliance with Federal Rule of Civil Procedure 7.1 and
Civil L.R. 7.1:
1. Full name of every party the attorneys represents in this matter:
All Plaintiffs: William Feehan and Derrick Van Orden
2. Parent corporations and stockholders:
a. Parent corporations, if any:
Not applicable.
b. List of corporate stockholders that are publicly held companies owning 10
percent or more of the stock of the party or amicus:
Not applicable.

414

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 3 Document 5

3. The name of all law firms whose partners or associates appear for a party or are
expected to appear for the party in this court:
Lead Counsel for Plaintiffs **
Sidney Powell
Sidney Powell P.C.
2911 Turtle Creek Blvd.
#300
Dallas, TX 75219-4480
(214) 707-1775
sidney@federalappeals.com
Of Counsel:
Julia Z. Haller (D.C. Bar No. 466921) **
Brandon Johnson (D.C. 491730) **
Emily P. Newman (Virginia Bar No. 84265) **
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
L. Lin Wood **
GA Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
Telephone: (404) 891-1402
Howard Kleinhendler **
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
** Applications for admission forthcoming

415

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 3 Document 5

Local Counsel for Plaintiffs
Michael D. Dean
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Wis. Bar No.01019171
Daniel J. Eastman
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com
Wis. Bar No.1011433
Dated December 1, 2020
Attorneys for Plaintiffs
SIDNEY POWELL P.C.
/s Sidney Powell
___________________________________
Sidney Powell
Sidney Powell P.C.
2911 Turtle Creek Blvd.
#300
Dallas, TX 75219-4480
(214) 707-1775
sidney@federalappeals.com
Attorneys for Plaintiff
MICHAEL D. DEAN, LLC
/s Michael D. Dean
___________________________________
Michael D. Dean, SBN 01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com

416

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 3 Document 5

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN and DERRICK VAN
ORDEN,

CASE NO. 2:20-cv-1771

Plaintiffs.

v.

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARLC
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.

PLAINTIFFS’ CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF

Pursuant to FRCP 65 and Civil L. R. 7, COME NOW Plaintiffs, William Feehan and Derrick
Van Orden, by and through their undersigned counsel, and file this Amended Motion for
Declaratory, Emergency, and Permanent Injunctive Relief.
This Corrected Motion is to correct the Motion filed earlier this same day, which was a draft
Motion inadvertently filed as the original Motion without attaching the Proposed Order pursuant
to the Court’s Electronic Case Filing Policies and Procedures Manual.
.

1

417

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 3 Document 6

The specific relief requested by Plaintiff is set forth in the proposed Order is attached. The
basis for the Motion is set forth in Plaintiffs’ Memorandum submitted in support.

Respectfully submitted, this 1st day of December, 2020.
LEAD COUNSEL FOR PLAINTIFFS
/s Sidney Powell**
Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler **
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
**Applications for admission forthcoming
Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com

2

418

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 3 Document 6

Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383

daneastman@me.com

CERTIFICATE OF ELECTRONIC SERVICE
Pursuant to FRCP 65, this is to certify that upon filing of this Motion, Plaintiffs will provide
electronic notice to Defendants of this Action and Motion as follows:
Defendants Wisconsin Elections Commission and
Wisconsin Elections Commissioners:
elections@wi.gov
Defendant Governor Tony Evers
eversinfo@wisconsin.gov

3

419

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 3 Document 6

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN, DERRICK VAN
ORDEN,
Plaintiffs,
v.

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK L.
THOMSEN, MARGE BOSTELMAN, JULIE
M. GLANCEY, DEAN KNUDSON, ROBERT
F. SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official
capacity,
Defendants.
____________________________________________________________________________
ORDER GRANTING EMERGENCY INJUNCTIVE RELIEF
____________________________________________________________________________
THE COURT has before it Plaintiffs’ Emergency Motion for Injunctive Relief filed December
1, 2020, seeking:
1. An order directing the Defendants Wisconsin Elections Commission and Governor Tony
Evers not to certify or to de-certify the 2020 election results in the Presidential and District 3
Congressional races;
2. An order enjoining Defendants from transmitting the currently certified Presidential election
results to the Electoral College;
3. An order requiring Governor Evers to transmit certified Presidential election results that state
that President Donald Trump is the winner of the election;
4. An immediate emergency order to seize and impound all servers, software, voting machines,
tabulators, printers, portable media, logs, ballot applications, ballot return envelopes, ballot images,

7
420

Case 2:20-cv-01771-PP Filed 12/01/20 Page 1 of 4 Document 6-1

paper ballots, and all “election materials” referenced in Wisconsin Statutes § 9.01(1)(b)11. related to
the November 3, 2020 Wisconsin election for forensic audit and inspection by the Plaintiffs;
5. An order that no votes received or tabulated by machines that were not certified as required
by federal and state law be counted;
6. A declaratory judgment declaring that Wisconsin’s failed system of signature verification
violates the Electors and Elections Clause by working a de facto abolition of the signature verification
requirement;
7. A declaratory judgment declaring that currently certified election results violate the Due
Process Clause, U.S. CONST. Amend. XIV;
8. A declaratory judgment declaring that mail-in and absentee ballot fraud must be remedied
with an individual manual recount or statistically valid sampling that properly verifies a ballot
application for each absentee ballot, that verifies the signatures on absentee ballot envelopes, and
that invalidates the certified results in the Presidential and District 3 Congressional races if the
recount or sampling analysis shows a sufficient number of ineligible absentee ballots were counted;
9. A declaratory judgment declaring absentee ballot fraud occurred in violation of
Constitutional rights, Election laws and under Wisconsin state law; and
10. A permanent injunction prohibiting the Governor and the Wisconsin Elections Commission
from transmitting the currently certified results to the Electoral College based on the overwhelming
evidence of election tampering.
Plaintiffs also contend that any recalibration or reset of voting machines, tabulations machines,
or other election-related mechanisms, servers, software, voting machines, tabulators, printers,
portable media, logs, or processes, and any alteration or destruction of ballot applications, ballot
return envelopes, ballot images, paper ballots, registration lists, poll lists, or any other “election
materials” referenced in Wisconsin Statutes § 9.01(1)(b)11. related to the November 3, 2020

7
421

Case 2:20-cv-01771-PP Filed 12/01/20 Page 2 of 4 Document 6-1

Wisconsin election, whether pursuant to § 7.23, Wisconsin Statutes, or otherwise, will make it
impossible to conduct a valid recount or inspection by Plaintiffs’ experts or others.
Plaintiffs contend any such act and any like it must be immediately enjoined across the state of
Wisconsin pursuant to 52 U.S.C. § 20701 (preservation of voting records) because resetting the
machines or other alteration or destruction of election equipment, records, or other materials would
destroy the evidence or alter evidence and make impossible any forensic computer audit of the
election computer systems for the November 3, 2020 General Election.
Plaintiffs therefore ask for an injunction to prevent any wiping or alteration of data or other
records or materials, and to ensure forensic analysis can take place.
Plaintiffs further ask for emergency injunctive to expedite the flow of discovery material and to
preserve all voting-related computer data information.
The Court has reviewed the terms and conditions of this Emergent Injunctive Relief Order, and
for good cause shown IT IS HEREBY ORDERED THAT:
1. A Temporary Restraining Order is immediately in effect to preserve the voting machines in
the State of Wisconsin, and to prevent any wiping or alteration of data or other records or materials,
until such time as a full computer audit is completed;
2. Governor Evers and the Wisconsin Elections Commission are to de-certify the election
results;
3. Governor Evers is hereby enjoined from transmitting the currently certified election results
to the Electoral College;
4. Governor Evers is required to transmit certified election results that state that President
Donald Trump is the winner of the election;
5. It is hereby Ordered that no votes received or tabulated by machines that were not certified
as required by federal and state law be counted;

7
422

Case 2:20-cv-01771-PP Filed 12/01/20 Page 3 of 4 Document 6-1

6. It is hereby declared and ordered that Wisconsin’s failed system of signature verification
violates the Electors and Elections Clause by working a de facto abolition of the signature verification
requirement;
7. It is hereby declared and ordered that the currently certified election results violate the Due
Process Clause, U.S. CONST. Amend. XIV;
8. It is hereby declared and ordered that mail-in and absentee ballot fraud must be remedied
with a Full Manual Recount or statistically valid sampling that properly verifies a ballot application
for each absentee ballot, that verifies the signatures on absentee ballot envelopes, and that invalidates
the certified results in the Presidential and District 3 Congressional races if the recount or sampling
analysis shows a sufficient number of ineligible absentee ballots were counted;
9. It is hereby declared that absentee ballot fraud occurred in violation of Constitutional rights,
Election laws and under Wisconsin state law; and
10. It is hereby declared and ordered that Governor Evers and the Wisconsin Elections
Commission are enjoined from transmitting the currently certified results to the Electoral College
based on the overwhelming evidence of election tampering;
It is so Ordered, this ___ day of December, 2020.

Hon. Pamela Pepper
District Court Judge
Eastern District of Wisconsin, Milwaukee Division

7
423

Case 2:20-cv-01771-PP Filed 12/01/20 Page 4 of 4 Document 6-1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
and DERRICK VAN ORDEN,
Plaintiffs,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
______________________________________________________________________________
ORDER REGARDING AMENDED MOTION FOR INJUNCTIVE RELIEF
(DKT. NO. 6)
______________________________________________________________________________
On the morning of December 1, 2020, the plaintiffs filed a complaint
(Dkt. No. 1) and a motion for declaratory, emergency and permanent injunctive
relief (Dkt. No. 2). The complaint is not verified.
The motion indicated that the specific relief the plaintiffs were requesting
was laid out in an attached order. Dkt. No. 2 at 1. This language was
highlighted and in a larger font than the rest of the motion. There was no order
attached. At the end of the motion, under the words “Certificate of Service,” the
following statement appeared (also highlighted): “This is to certify that I have
on this day e-filed the foregoing Plaintiffs’ Motion to File Affidavits Under Seal
and For In Camera Review with the Clerk of Court using the CM/ECF system,
and that I have delivered the filing to the Defendants by email and FedEx at the
following addresses:”. Id. at 2. No addresses were listed below this statement

1

424

Case 2:20-cv-01771-PP Filed 12/02/20 Page 1 of 4 Document 7

and no documents were filed under seal. There was no request for in camera
review.
Under Federal Rule of Civil Procedure 65(b), a court cannot issue a
temporary restraining order without written or oral notice to the adverse party
or that party’s attorney unless the moving party (a) files an affidavit or “verified
complaint” containing specific facts that clearly show that immediate and
irreparable injury, loss or damage will result to the movant before the adverse
party has a chance to be heard in opposition, and (b) the movant’s attorney
certifies in writing any efforts made to give notice and the reasons why notice
should not be required. There was no indication that the plaintiffs gave notice
to the adverse parties of the morning’s motion, there was no affidavit filed with
the motion, the complaint is not verified and there was no certification from
counsel about the efforts made to give notice to the adverse parties or why
notice should not be required.
At 3:15 that afternoon, the plaintiffs filed another document. It appears
on the docket as a motion to amend or correct, but the document itself is
captioned, “Plaintiffs’ Corrected Motion for Declaratory, Emergency, and
Permanent Injunctive Relief.” Dkt. No. 6. This motion indicates that the earlier
motion was an inadvertently filed draft and acknowledges that the referenced
proposed order had not been attached. Id. at 1. At the end of the “corrected,” or
amended, motion, under the heading “Certificate of Electronic Service,” the
motion states,

2

425

Case 2:20-cv-01771-PP Filed 12/02/20 Page 2 of 4 Document 7

Pursuant to FRCP 65, this is to certify that upon filing of this
Motion, Plaintiffs will provide electronic notice to Defendants of this
Action and Motion as follows:
Defendants Wisconsin Elections Commission and Wisconsin
Elections Commissioners:
elections@wi.gov
Defendant Governor Tony Evers
eversinfo@wisconsin.gov
Id. at 3.
There is a proposed order attached to the afternoon’s amended motion.
Dkt. No. 6-1. The proposed order asks various injunctions, declarations and
orders. It does not ask for a hearing.
Because the afternoon motion indicates that the plaintiffs “will” provide
electronic notice to the adverse parties, the court does not know whether the
plaintiffs have yet provided notice to the adverse parties or when they will do
so. Until the plaintiffs notify the court that they have provided notice to the
adverse parties, the court will not take any action because the motion does not
comply with the requirements of Rule 65(b).
If the plaintiffs have provided notice to the adverse parties, under Civil
Local Rule 7(b) (E.D. Wis.) those parties have twenty-one days to respond to the
motion and under Civil L.R. 7(c) the plaintiffs have fourteen days to reply.
While the caption of the motion includes the word “emergency” and the
attached proposed order seeks an “expedited” injunction, neither the motion
nor the proposed order indicate whether the plaintiffs are asking the court to
act more quickly or why. As indicated, the motion does not request a hearing.
It does not propose a briefing schedule.
3

426

Case 2:20-cv-01771-PP Filed 12/02/20 Page 3 of 4 Document 7

If the plaintiffs believe an expedited briefing schedule is necessary or
warranted, they may contact chambers, with representatives of the adverse
parties on the line, and request a telephone hearing. Otherwise, the court will
await the defendants’ opposition brief.
Dated in Milwaukee, Wisconsin this 2nd day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

4

427

Case 2:20-cv-01771-PP Filed 12/02/20 Page 4 of 4 Document 7

AO 458 (Rev. 06/09) Appearance of Counsel

UNITED STATES DISTRICT COURT
for the

Eastern District of Wisconsin
WILLIAM FEEHAN, DERRICK VAN ORDEN
Plaintiff

v.

WISCONSIN ELECTIONS COMMISSION,
S Defendant
Atta hm

)
)
)
)
)

Case No.

APPEARANCE OF COUNSEL
To:

The clerk of court and all parties of record
I am admitted or otherwise authorized to practice in this court, and I appear in this case as counsel for:
.

Date:

Attorney’s signature

Printed name and bar number

Address

E-mail address

Telephone number

FAX number

Print

428

Save As...

Case 2:20-cv-01771-PP Filed 12/02/20 Page 1 of 1 Document 8

Reset

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

AMENDED COMPLAINT FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF

NATURE OF THE ACTION
1. This civil action brings to light a massive election fraud, multiple violations of Wisconsin
Statutes Chapters 5 – 12 (hereafter, “Wisconsin Election Code”), see, e.g., Wis. Stat. §§ 5.03, et.
seq., in addition to the Election and Electors Clauses and Equal Protection Clause of the U.S.
Constitution.

These violations occurred during the 2020 General Election in the City of

Milwaukee, southeastern Wisconsin counties, and throughout the State of Wisconsin, as set forth
in the affidavits of dozens of eyewitnesses and the statistical anomalies and mathematical
impossibilities detailed in the affidavits of expert witnesses. See Exh. 19, Declaration of affiant
presenting statistical analysis prediction of 105,639 fraudulent ballots cast for Joe Biden in the
1

429

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 51 Document 9

City of Milwaukee and Exh. 17, Declaration of Russell James Ramsland, Jr. wherein he
demonstrates it is statistically impossible for Joe Biden to have won Wisconsin.
2. The scheme and artifice to defraud was for the purpose of illegally and fraudulently
manipulating the vote count to manufacture an election of Joe Biden as President of the United
States, and also of various down ballot democrat candidates in the 2020 election cycle. The fraud
was executed by many means, but the most fundamentally troubling, insidious, and egregious ploy
was the systemic adaptation of old-fashioned “ballot-stuffing” techniques. See Exh. 16, U. S.
Senator Elizabeth Warren (D. Mass.) letter of December 6, 2019 concerning the dangers of private
equity control and censorship of election technology in the United States.
3. The fraud has now been amplified and rendered virtually invisible by computer software
created and run by domestic and foreign actors for that very purpose. See Exh. 18, Joint
Cybersecurity Advisory issued on October 30, 2020 by the U.S. Department of Justice Federal
Bureau of Investigation (FBI) and the Cybersecurity & Infrastructure Security Agency (CISA)
warning election officials about actual election system hacking events by Iranian agents in an
attempt to manipulate the November 3, 2020 election. This Amended Complaint details an
especially egregious range of conduct in Milwaukee County and the City of Milwaukee, along
with Dane County, La Crosse County, Waukesha County, St. Croix County, Washington County,
Bayfield County, Ozaukee County and various other counties throughout Wisconsin employing
Dominion Systems, though this conduct occurred throughout the State at the direction of
Wisconsin state election officials.
4. The multifaceted schemes and artifices implemented by Defendants and their
collaborators to defraud resulted in the unlawful counting, or fabrication, of hundreds of thousands
of illegal, ineligible, duplicate or purely fictitious ballots in the State of Wisconsin, that collectively
2

430

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 51 Document 9

add up to multiples of Biden’s purported lead in the State of 20,565 votes.
5. While this Amended Complaint, and the eyewitness and expert testimony incorporated
herein, identify with specificity sufficient ballots required to set aside the 2020 General Election
results, the entire process is so riddled with fraud, illegality, and statistical impossibility that this
Court, and Wisconsin’s voters, courts, and legislators, cannot rely on, or certify, any numbers
resulting from this election. Accordingly, this Court must set aside the results of the 2020 General
Election and grant the declaratory and injunctive relief requested herein.
Dominion Voting Systems Fraud and Manipulation
6. The fraud begins with the election software and hardware from Dominion Voting
Systems Corporation (“Dominion”) used by the Wisconsin Elections Commission. The Dominion
systems derive from the software designed by Smartmatic Corporation, which became Sequoia in
the United States.
7. Smartmatic and Dominion were founded by foreign oligarchs and dictators to ensure
computerized ballot-stuffing and vote manipulation to whatever level was needed to make certain
Venezuelan dictator Hugo Chavez never lost another election. See Exh. 1, Redacted Declaration
of Dominion Venezuela Whistleblower (“Dominion Whistleblower Report”) and Exh. 8,
Statement by Ana Mercedes Diaz Cardozo outlining actual examples of election manipulation by
hacking and misuse of technology in Venezuelan elections. Notably, Chavez “won” every election
thereafter.
8. As set forth in the Dominion Whistleblower Report, the Smartmatic software was
contrived through a criminal conspiracy to manipulate Venezuelan elections in favor of dictator
Hugo Chavez:
Importantly, I was a direct witness to the creation and operation of an electronic
voting system in a conspiracy between a company known as Smartmatic and the
3

431

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 51 Document 9

leaders of conspiracy with the Venezuelan government. This conspiracy
specifically involved President Hugo Chavez Frias, the person in charge of the
National Electoral Council named Jorge Rodriguez, and principals, representatives,
and personnel from Smartmatic. The purpose of this conspiracy was to create and
operate a voting system that could change the votes in elections from votes against
persons running the Venezuelan government to votes in their favor in order to
maintain control of the government. In mid-February of 2009, there was a national
referendum to change the Constitution of Venezuela to end term limits for elected
officials, including the President of Venezuela. The referendum passed. This
permitted Hugo Chavez to be re-elected an unlimited number of times. . . .
Smartmatic’s electoral technology was called “Sistema de Gestión Electoral” (the
“Electoral Management System”). Smartmatic was a pioneer in this area of
computing systems. Their system provided for transmission of voting data over the
internet to a computerized central tabulating center. The voting machines
themselves had a digital display, fingerprint recognition feature to identif y the
voter, and printed out the voter’s ballot. The voter’s thumbprint was linked to a
computerized record of that voter’s identity. Smartmatic created and operated the
entire system. Id. ¶¶ 10 & 14.
9. A core requirement of the Smartmatic software design ultimately adopted by Dominion
for Wisconsin’s elections was the software’s ability to hide its manipulation of votes from any
audit. As the whistleblower explains:
Chavez was most insistent that Smartmatic design the system in a way that the
system could change the vote of each voter without being detected. He wanted the
software itself to function in such a manner that if the voter were to place their
thumb print or fingerprint on a scanner, then the thumbprint would be tied to a
record of the voter’s name and identity as having voted, but that voter would not
tracked to the changed vote. He made it clear that the system would have to be setup
to not leave any evidence of the changed vote for a specific voter and that there
would be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic agreed to
create such a system and produced the software and hardware that accomplished
that result for President Chavez. Id. ¶15.
10. The design and features of the Dominion software do not permit a simple audit to reveal
its misallocation, redistribution, or deletion of votes. First, the system’s central accumulator does
not include a protected real-time audit log that maintains the date and time stamps of all significant
election events. Key components of the system utilize unprotected logs. Essentially this allows
4

432

Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 51 Document 9

an unauthorized user the opportunity to arbitrarily add, modify, or remove log entries, causing the
machine to log election events that do not reflect actual voting tabulations—or more specifically,
do not reflect the actual votes of or the will of the people. 1 See Exh. 14, Declaration of Ronald
Watkins regarding manipulation of Dominion software and built-in optical ballot scanning systems
to contrive an election outcome in multiple states.
11. This Amended Complaint will show that Dominion violated physical security standards
by connecting voting machines to the Internet, allowing Dominion, domestic third parties or hostile
foreign actors to access the system and manipulate election results, and moreover potentially to
cover their tracks due to Dominion’s unprotected log. Accordingly, a thorough forensic
examination of Dominion’s machines and source code (pursuant to Wisconsin Statute § 5.905) is
required to document these instances of voting fraud, as well as Dominion’s systematic violations
of the Voting Rights Act record retention requirements through manipulation, alteration,
destruction and likely foreign exfiltration of voting records. See 52 U.S.C. § 20701.
12. These and other problems with Dominion’s software have been widely reported in the
press and been the subject of investigations. In certifying Dominion Voting Systems Democracy
Suite, Wisconsin officials disregarded all the concerns that caused Dominion software to be
rejected by the Texas Board of elections in 2020 because it was deemed vulnerable to undetected
and non-auditable manipulation. Texas denied Certification because of concerns that it was not
safe from fraud or unauthorized manipulation. See Exh. 11.
13. An industry expert, Dr. Andrew Appel, Princeton Professor of Computer Science and
See Ex. 7, August 24, 2020 Declaration of Harri Hursti, ¶¶45-48 (expert testimony in Case
1:17-cv-02989 in the U.S. District Court for the Northern District of Georgia). The Texas
Secretary of State refused to certify Dominion for similar reasons as those cited by Mr. Hursti. See
Ex. 9, State of Texas Secretary of State, Elections Division, Report of Review of Dominion Voting
Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020).
1

5

433

Case 2:20-cv-01771-PP Filed 12/03/20 Page 5 of 51 Document 9

Election Security Expert has recently observed, with reference to Dominion Voting machines: “I
figured out how to make a slightly different computer program that just before the polls were
closed, it switches some votes around from one candidate to another. I wrote that computer
program into a memory chip and now to hack a voting machine you just need 7 minutes alone with
a screwdriver.”2
14. In addition to the Dominion computer fraud, this Amended Complaint identifies several
additional categories of “traditional” voting fraud that occurred as a direct result of Defendant
Wisconsin Election Commission (“WEC”) and other Defendants directing Wisconsin clerks and
other election officials to ignore or violate the express requirements of the Wisconsin Election
Code. First, the WEC issued “guidance” to county and municipal clerks not to reject “indefinitely
confined” absentee voters, even if the clerks possess “reliable information” that the voter is no
longer indefinitely confined, in direct contravention of Wisconsin Statute § 6.86(2)(6), which
states that clerks must remove such voters. Second, the WEC issued further guidance directing
clerks – in violation of Wisconsin Statute § 6.87(6)(d), which states that an absentee envelope
certification “is missing the address of a witness, the ballot may not be counted ” – to instead fill
in the missing address information.
15. This Amended Complaint presents expert witness testimony demonstrating that several
hundred thousand illegal, ineligible, duplicate or purely fictitious votes must be thrown out, in
particular:
A. A report from Dr. William Briggs, showing that there were approximately
29,594 absentee ballots listed as “unreturned” by voters that either never
requested them, or that requested and returned their ballots;
B. Reports from Redacted Expert Witnesses who can show an algorithm was used
Andrew W. Appel, et al., “Ballot Marking Devices (BMDs) Cannot Assure the Will of the
Voters” at (Dec. 27, 2019),( attached hereto as Exh. 10 (“Appel Study”)).
2

6

434

Case 2:20-cv-01771-PP Filed 12/03/20 Page 6 of 51 Document 9

to pick a winner.
16. In the accompanying redacted declaration of a former electronic intelligence analyst with
305th Military Intelligence with experience gathering SAM missile system electronic intelligence,
the Dominion software was accessed by agents acting on behalf of China and Iran in order to
monitor and manipulate elections, including the most recent US general election in 2020. See Exh.
12 (copy of redacted witness affidavit).
17. These and other “irregularities” demonstrate that at least 318,012 illegal ballots were
counted in Wisconsin. This provides the Court with sufficient grounds to set aside the results of
the 2020 General Election and provide the other declaratory and injunctive relief requested herein.
JURISDICTION AND VENUE
18. This Court has subject matter under 28 U.S.C. § 1331 which provides, “The district courts
shall have original jurisdiction of all civil actions arising under the Constitution, laws, or treaties
of the United States.”
19. This Court also has subject matter jurisdiction under 28 U.S.C. § 1343 because this action
involves a federal election for President of the United States. “A significant departure from the
legislative scheme for appointing Presidential electors presents a federal constitutional question.”
Bush v. Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring); Smiley v. Holm, 285 U.S.
355, 365 (1932).
20. The jurisdiction of the Court to grant declaratory relief is conferred by 28 U.S.C. §§ 2201
and 2202 and by Rule 57, Fed. R. Civ. P.
21. This Court has jurisdiction over the related Wisconsin constitutional claims and state-law
claims under 28 U.S.C. § 1367.
22. Venue is proper because a substantial part of the events or omissions giving rise to the
7

435

Case 2:20-cv-01771-PP Filed 12/03/20 Page 7 of 51 Document 9

claim occurred in the Eastern District. 28 U.S.C. § 1391(b) & (c).
23. Because the United States Constitution reserves for state legislatures the power to set the
time, place, and manner of holding elections for the President, state executive officers have no
authority to unilaterally exercise that power, much less flout existing legislation.
THE PARTIES
24. Plaintiff William Feehan, is a registered Wisconsin voter and a nominee of the Republican
Party to be a Presidential Elector on behalf of the State of Wisconsin. Mr. Feehan is a resident of
the City of La Crosse and La Crosse County, Wisconsin.
25. Presidential Electors “have a cognizable interest in ensuring that the final vote tally
reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized
injury to candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
of state officials implementing or modifying State election laws); see also McPherson v. Blacker,
146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per
curiam).
26. Plaintiff Feehan has standing to bring this action as a voter and as a candidate for the
office of Elector under Wis. Stat. §§ 5.10, et seq (election procedures for Wisconsin electors). As
such, Presidential Electors “have a cognizable interest in ensuring that the final vote tally reflects
the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury
to candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
of state officials in implementing or modifying State election laws); see also McPherson v.
Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000)
8

436

Case 2:20-cv-01771-PP Filed 12/03/20 Page 8 of 51 Document 9

(per curiam).
27. Plaintiff brings this action to prohibit certification of the election results for the Office of
President of the United States in the State of Wisconsin and to obtain the other declaratory and
injunctive relief requested herein. Those results were certified by Defendants on November 30,
2020, indicating a plurality for Mr. Biden of 20,565 votes out of 3,240,867 cast.
28. The Defendants are Wisconsin Elections Commission (“WEC”), a state agency, and its
members Ann S. Jacobs, Mark L. Thomsen, Marge Bostelman, Julie M. Glancey, Dean Knudson,
and Robert F. Spindell, Jr., in their official capacities
29. Defendant Governor Tony Evers is named as a defendant in his official capacity as
Wisconsin’s governor.
30. Defendant WEC was created in 2015 by the Wisconsin Legislature as an independent
agency under the Executive branch to administer Wisconsin’s election laws. Wis. Stat. §§ 5.03 &
15.61. The WEC is authorized to adopt administrative rules pursuant to Chapter 227 of the
Wisconsin Statutes, but nothing under Wisconsin’s election laws authorizes the WEC to issue any
documents, make any oral determinations or instruct governmental officials ad ministering
elections to perform any act contrary to Wisconsin law governing elections.
31. Furthermore, the Wisconsin Legislature also created municipal elections commissions for
municipalities with a population greater than 500,000 and a county elections commissions for
counties with a population greater than 750,000. Wis Stat. § 7.20. As a result, the City of
Milwaukee Elections Commission was created as well as the Milwaukee County Elections
Commission and the Dane County Elections Commission. These county and municipal elections
commissions are responsible for administering the elections in their respective jurisdictions.

9

437

Case 2:20-cv-01771-PP Filed 12/03/20 Page 9 of 51 Document 9

STATEMENT OF FACTS
32. Plaintiff brings this action under 42 U.S.C. §§ 1983 and 1988, to remedy deprivations of
rights, privileges, or immunities secured by the Constitution and laws of the United States and to
contest the election results, and the corollary provisions under the Wisconsin Constitution.
33. The United States Constitution sets forth the authority to regulate federal elections. With
respect to the appointment of presidential electors, the Constitution provides:
Each State shall appoint, in such Manner as the Legislature thereof may direct, a
Number of Electors, equal to the whole Number of Senators and Representatives to
which the State may be entitled in the Congress: but no Senator or Representative,
or Person holding an Office of Trust or Profit under the United States, shall be
appointed an Elector.
U.S. CONST. art. II, § 1 (“Electors Clause”).
34. None of Defendants is a “Legislature” as required under the Elections Clause or Electors
Clause to set the rules governing elections. The Legislature is “‘the representative body which
ma[kes] the laws of the people.’” Smiley, 285 U.S. 365. Regulations of presidential elections, thus,
“must be in accordance with the method which the state has prescribed for legislative enactments.”
Id. at 367; see also Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n, 576 U.S. 787, 135
S. Ct. 2652, 2668 (U.S. 2015).
35. The WEC certified the Presidential Election results on November 30, 2020.

The

Presidential election results in Wisconsin show a difference of 20,565 “tallied” votes in favor of
former Vice-President Joe Biden over President Trump.
36. Based upon all the allegations of fraud, statutory violations, and other misconduct, as
stated herein and in the attached affidavits, it is necessary to enjoin the certification of the election
results pending a full investigation and court hearing, and to order an independent audit of the
November 3, 2020 election to ensure the accuracy and integrity of the election.
10

438

Case 2:20-cv-01771-PP Filed 12/03/20 Page 10 of 51 Document 9

I. VIOLATIONS OF WISCONSIN ELECTION CODE
A. WEC Directed Clerks to Violate Wisconsin Election Code Requirements for
Absentee Voting by “Indefinitely Confined” without Photo ID.
37. The Wisconsin State Legislature adopted Act 23 in 2011 to require Wisconsin electors to
present an identification containing a photograph, such as a driver’s license, to either a municipal or
county clerk, when registering to vote and when voting. Wis. Stat. §§ 6.34; 6.79 (2). The Wisconsin
State Legislature adopted the photo ID requirement to deter the casting of ballots by persons either not
eligible to vote or persons fraudulently casting multiple ballots. League of Women Voters of
Wisconsin Education Network, Inc. v. Walker, 851 N.W.2d 302, 314 (Wis. 2014).
38. Wisconsin’s absentee voting is governed by Wisconsin Statutes § 6.84 - § 6.89. Under
Wisconsin Statutes §6.86, every absentee elector applicant must present a photo ID when registering
to vote absentee except absentee voters who registered as “indefinitely confined,” Wis. Stat. §6.86
(ac), meaning someone confined “because of age, physical illness or infirmity or is disabled for an
indefinite period.” Wis. Stat. § 6.86(2)(a). As a result, Wisconsin election procedures for voting
absentee based on “indefinitely confined” status circumvent the photo ID requirement, creating an
avenue for fraudulent voting.
39. In order to ensure that only those who are “indefinitely confined” may use the “indefinitely
confined” absentee ballot in an election, Wisconsin Statutes §6.86 provides that any elector who files
an application for an absentee ballot based on indefinitely confined status may not use the absentee
ballot if the electoral is no longer “indefinitely confined.” Wisconsin Statutes § 6.86 (2)(b) further
provides that the municipal clerk “shall remove the name of any other elector from the list upon
request of the elector or upon receipt of reliable information that an elector no longer qualifies for
the service.”
40. Despite this clear statutory requirement, the Administrator of the Wisconsin Election
11

439

Case 2:20-cv-01771-PP Filed 12/03/20 Page 11 of 51 Document 9

Commission, Meagan Wolfe, issued a written directive on May 13, 2020 to the clerks across the
State of Wisconsin stating that the clerks cannot remove an allegedly “indefinitely confined”
absentee voter from the absentee voter register if the clerk had “reliable information” that an
allegedly “indefinitely confined” absentee voter is no longer “indefinitely confined.” The directive
specifically stated:
Can I deactivate an absentee request if I believe the voter is not indefinitely
confined? No. All changes to status must be made in writing and by the voter’s
request. Not all medical illnesses or disabilities are visible or may only impact the
voter intermittently. (See WEC May 13, 2020 Guidance Memorandum).
41. The WEC’s directive thus directly contradicts Wisconsin law, which specifically provides
that clerks “shall” remove an indefinitely confined voter from the absentee voter list if the clerk
obtains “reliable information” that the voter is no longer indefinitely confined.
42. As a result of the directive, clerks did not remove from the absentee voter lists maintained
by their jurisdictions the absentee voters who claimed “indefinitely confined” status but who in
fact were no longer “indefinitely confined.” This resulted in electors who were allegedly
“indefinitely confined” absentee voters casting ballots as “indefinitely confined” absentee voters
who were not actually “indefinitely confined” absentee voters.
B. WEC Directed Clerks to Violate Wisconsin Law Prohibiting Counting of
Absentee Ballot Certificates Missing Witness Addresses.
43. In 2015, the Wisconsin Legislature passed Act 261, amending Wisconsin’s election laws,
including a requirement, codified as Wisconsin Statute § 6.87(d), that absentee ballots include both
elector and witness certifications, which must include the address of the witness. If the address
of the witness is missing from the witness certification, however, “the ballot may not be counted.”
Id.
44. On October 18, 2016, WEC reacted to this legislation by issuing a memorandum, which,
12

440

Case 2:20-cv-01771-PP Filed 12/03/20 Page 12 of 51 Document 9

among other things, permitted clerks to write in the witness address onto the absentee ballot
certificate itself, effectively nullifying this express requirement. (See WEC October 18, 2016
Guidance Memorandum).

Wisconsin election officials reiterated this unlawful directive in

publicly posted training videos. For example, in a Youtube video posted before the November 3,
2020 General Election by Clarie Woodall-Voog of the Milwaukee Elections Commission, Ms.
Woodall-Voog advised clerks that missing items “like witness address may be written in red.”3
C. WEC Directed Clerks to Illegally Cure Absentee Ballots by Filling in Missing
Information on Absentee Ballot Certificates and Envelopes.
45. On October 19, 2020, WEC instructed its clerks that, without any legal basis in the
Wisconsin Election Code, they could simply fill in missing witness or voter certification
information using, e.g., personal knowledge, voter registration information, or calling the voter or
witness. The WEC further advised that voters or witnesses could cure any missing information at
the polling place, again without citing any authority to do so under Wisconsin Election Code.
II. EXPERT WITNESS TESTIMONY:
EVIDENCE OF WIDESPREAD VOTER FRAUD
A. Approximately 15,000 Wisconsin Mail-In Ballots Were Lost, and
Approximately 18,000 More Were Fraudulently Recorded for Voters who
Never Requested Mail-In Ballots.
46. The attached report of William M. Briggs, Ph.D., Exh. 2 (“Dr. Briggs Report”)
summarizes the multi-state phone survey that includes a survey of Wisconsin voters collected by
Matt Braynard, which was conducted from November 15-17, 2020. See Exh. 3 (“Braynard
Survey”). The Briggs analysis identified two specific errors involving unreturned mail-in ballots
that are indicative of voter fraud, namely: “Error #1: those who were recorded as receiving
absentee ballots without requesting them;” and “Error #2: those who returned absentee ballots

3

See https://www.youtube.com/watch?v=hbm-pPaYiqk (video a 10:43 to 11:07).
13

441

Case 2:20-cv-01771-PP Filed 12/03/20 Page 13 of 51 Document 9

but whose votes went missing (i.e., marked as unreturned).” Exh. 2. Dr. Briggs then conducted a
parameter-free predictive model to estimate, within 95% confidence or prediction intervals, the
number of ballots affected by these errors out of a total of 96,771 unreturned mail-in ballots for
the State of Wisconsin.
47. With respect to Error #1, Dr. Briggs’ analysis estimated that 16,316-19,273 ballots out
of the total 96,771 unreturned ballots were recorded for voters who had not requested them. Id.
With respect to Error #2, he found 13,991 – 16,757 ballots out of 96,771 unreturned ballots
recorded for voters who did return their ballots were recorded as being unreturned. Id.
Taking the average of the two types of errors together, 29,594 ballots, or 31% of the total, are
“troublesome.”
48. These errors are not only conclusive evidence of widespread fraud by the State of
Wisconsin, but they are fully consistent with the fact witness statements cited above regarding the
evidence about Dominion presented below insofar as these unreturned absentee ballots
represent a pool of blank ballots that could be filled in by third parties to shift the election
to Joe Biden, and also present the obvious conclusion that there must be absentee ballots
unlawfully ordered by third parties that were returned.
49. With respect to Error #1, Dr. Briggs’ analysis demonstrates that approximately 17,795
absentee ballots were sent to someone besides the registered voter named in the request, and
thus could have been filled out by anyone and then submitted in the name of another voter.
Regarding ballots ordered by third parties that were voted, those would no longer be in the
unreturned pool and therefore cannot be estimated from this data set.
50. With respect to Error #2, Dr. Briggs’ analysis indicates that approximately 15,374
absentee ballots were either lost or destroyed (consistent with allegations of Trump ballot
14

442

Case 2:20-cv-01771-PP Filed 12/03/20 Page 14 of 51 Document 9

destruction) and/or were replaced with blank ballots filled out by election workers, Dominion
or other third parties. Dr. Briggs’ analysis shows that 31% of “unreturned ballots” suffer from
one of the two errors above – which is consistent with his findings in the four other States analyzed
(Arizona 58%, Georgia 39%, Pennsylvania 37%, and Wisconsin 45%) – and provides further
support that these widespread “irregularities” or anomalies were one part of a much larger multistate fraudulent scheme to rig the 2020 General Election for Joe Biden.
B. Nearly 7,000 Ineligible Voters Who Have Moved Out-of-State Illegally Voted
in Wisconsin.
51. Evidence compiled by Matt Braynard using the National Change of Address (“NCOA”)
Database shows that 6,207 Wisconsin voters in the 2020 General Election moved out-of-state prior
to voting, and therefore were ineligible. Exh. 3. Mr. Braynard also identified 765 Wisconsin
voters who subsequently registered to vote in another state and were therefore ineligible to vote in
the 2020 General Election. The merged number is 6,966 ineligible voters whose votes must be
removed from the total for the 2020 General Election. 4 Id.
C. A Statistical Study Reveals that Biden Overperformed in those Precincts that
Relied on Dominion Voting Machines
52. From November 13th , 2020 through November 28th , 2020, the Affiant conducted in-depth
statistical analysis of publicly available data on the 2020 U.S. Presidential Election. This data
included vote counts for each county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee. The Affiant’s analysis yielded
several “red flags” concerning the percentage of votes won by candidate Biden in counties using
voting machines provided by Dominion Voting Systems.

These red flags occurred in several

Mr. Braynard posted the results of his analysis on Twitter.
See https://twitter.com/MattBraynard/status/1329700178891333634?s=20. This Complaint
includes a copy of his Report, (attached hereto as Exh. 3).
4

15

443

Case 2:20-cv-01771-PP Filed 12/03/20 Page 15 of 51 Document 9

States in the country, including Wisconsin. (See attached hereto as Exh. 4, copy of redacted
Affiant, B.S. Mathematics and M.S. Statistics).
53. The Affiant began by using Chi-Squared Automatic Interaction Detection (CHAID),
which treats the data in an agnostic way—that is, it imposes no parametric assumptions that could
otherwise introduce bias. Affiant posed the following question: “Do any voting machine types
appear to have unusual results?” The answer provided by the statistical technique/algorithm was
that machines from Dominion Voting Systems (Dominion) produced abnormal results. Id.
54. Subsequent graphical and statistical analysis shows the unusual pattern involving
machines from Dominion occurs in at least 100 counties and multiple States, including Wisconsin.
The results from the vast majority of counties using the Dominion machines is 3 to 5.6 percentage
points higher in favor of candidate Biden. This pattern is seen easily in graphical form when the
results from “Dominion” counties are overlaid against results from “non-Dominion” counties. The
results from “Dominion” counties do not match the results from the rest of the counties in the
United States. The results are clearly statistically significant, with a p-value of < 0.00004. This
translates into a statistical impossibility that something unusual involving Dominion machines is
not occurring. This pattern appears in multiple States, including Wisconsin, and the margin of
votes implied by the unusual activity would easily sway the election results. Id.
55. The following graph shows the pattern. The large red dots are counties in Wisconsin that
use Dominion voting machines. Almost all of them are above the blue prediction line, when in
normal situations approximately half of them would be below the prediction line (as evidence by
approximately half the counties in the U.S. (blue dots) that are below the blue centerline). The pvalue of statistical analysis regarding the centerline for the red dots (Wisconsin counties with
Dominion machines) is 0.000000049, pointing to a statistical impossibility that this is a “random”
16

444

Case 2:20-cv-01771-PP Filed 12/03/20 Page 16 of 51 Document 9

statistical anomaly. Some external force caused this anomaly:

Id.
56. To confirm that Dominion machines were the source of the pattern/anomaly, Affiant
conducted further analysis using propensity scoring using U.S. census variables (including
ethnicities, income, professions, population density and other social/economic data) , which was
used to place counties into paired groups. Such an analysis is important because one concern could
be that counties with Dominion systems are systematically different from their counterparts, so
abnormalities in the margin for Biden are driven by other characteristics unrelated to the election.
Id.
57. After matching counties using propensity score analysis, the only difference between the
groups was the presence of Dominion machines. This approach again showed a highly statistically
17

445

Case 2:20-cv-01771-PP Filed 12/03/20 Page 17 of 51 Document 9

significant difference between the two groups, with candidate Biden again averaging three
percentage points higher in Dominion counties than in the associated paired county. The
associated p-value is < 0.00005, against indicating a statistical impossibility that something
unusual is not occurring involving Dominion machines. Id.
58. The results of the analysis and the pattern seen in the included graph strongly suggest a
systemic, system-wide algorithm was enacted by an outside agent, causing the results of
Wisconsin’s vote tallies to be inflated by somewhere between three and five point six percentage
points. Statistical estimating yields that in Wisconsin, the best estimate of the number of
impacted votes is 181,440. Id.
59. The summation of sections A through C above provide the following conclusions for the
reports cited above, respectively.
•

returned ballots that were deemed unreturned by the state: 15,374

•

unreturned mail ballots unlawfully ordered by third parties: 17,795

•

votes by persons that moved out of state or subsequently registered to vote
in another state for the 2020 election: 6,966

•

Votes that were improperly relying on the “indefinitely confined”
exemption to voter ID: 96,437

•

And excess votes arising from the statistically significant outperformance
of Dominion machines on behalf of Joe Biden: 181,440

In Conclusion, the Reports cited above show a total amount of illegal votes identified that
amount to 318,012 or over 15 times the margin by which candidate Biden leads President
Trump in the state of Wisconsin.
III. FACTUAL ALLEGATIONS REGARDING DOMINION VOTING SYSTEMS
60. The State of Wisconsin, in many locations, used either Sequoia, a subsidiary of Dominion
Systems, and or Dominion Systems, Democracy Suite 4.14-D first, and then included Dominion
18

446

Case 2:20-cv-01771-PP Filed 12/03/20 Page 18 of 51 Document 9

Systems Democracy Suite 5.0-S on or about January 27, 2017, which added a fundamental
modification: “dial-up and wireless results transmission capabilities to the ImageCast Precinct and
results transmission using the Democracy Suite EMS Results Transfer Manager module.” (See
Exh. 5, attached hereto, a copy of the Equipment for WI election systems).
A. Dominion’s Results for 2020 General
Dominion Manipulated Election Results.

Election

Demonst ra t e

61. Affiant Keshel’s findings that reflect the discussion cited above:
While Milwaukee County is focal for transparency and observation violations,
including reporting statistically impossible vote counts in the early morning hours
away from scrutiny, Dane County has surged far past support totals for President
Obama, despite expected difficulties mobilizing student voters to polls. President
Trump has reconsolidated the Republican base in suburban Milwaukee and far
surpassed his 2016 support levels but has been limited in margin growth by
historically improbable Democratic support in these strongholds, which defy years
of data in Wisconsin in which the Republican party surged as the Democratic Party
plunged. Finally, in strong Trump counties showing a double inversion cycle (one
party up, the other down), particularly in rural and exurban Wisconsin, Trump’s
totals are soaring, and against established trends, Biden’s totals are at improbable
levels of support despite lacking registration population
(See attached hereto, Exh. 9, Aff. of Seth Keshel, MBA)

Id.
62. Keshel provides a graph reflecting the voter returns in a time-series. The highly unlikely
19

447

Case 2:20-cv-01771-PP Filed 12/03/20 Page 19 of 51 Document 9

and remarkably convenient attainment of this block of votes provides for a stunning depiction of
the election and generates many questions. The analysis provided by Plaintiff’s multiple experts,
including data, statistics and cyber, will reveal clear evidence of the multiple frauds that combined
to change the outcome of the 2020 election.

See Id.
B. Administrative
Security Flaws.

and

Judicial

Decisions

Regarding

Dominion ’ s

63. Wisconsin. In 2018, Jill Stein was in litigation with Dominion Voting Systems
(“DVS”) after her 2016 recount request pursuant to WISCONSIN STAT.§5.905(4) wherein
DVS obtained a Court Order requiring confidentiality on information including voting counting
source code, which Dominion claims is proprietary – and must be kept secret from the public. (See
unpublished decision, Wisconsin Court of Appeals, No. 2019AP272 issued April 30, 2020).
Rather than engaging in an open and transparent process to give credibility to Wiscons in’ s
20

448

Case 2:20-cv-01771-PP Filed 12/03/20 Page 20 of 51 Document 9

Dominion-Democracy Suite voting system, the processes were hidden during the receipt,
review, opening, and tabulation of those votes in direct contravention of Wiscons in ’ s
Election Code and Federal law.
64. Texas. The same Dominion Democracy Suite was denied certification in Texas by the
Secretary of State on January 24, 2020, specifically because the “examiner reports raise concerns
about whether Democracy Suite 5.5-A system … is safe from fraudulent or unauthorized
manipulation.”5
65. Georgia. Substantial evidence of this vulnerability was discussed in Judge Amy
Totenberg’s October 11, 2020 Order in the USDC N.D. Ga. case of Curling, et al. v. Kemp, et. al,
Case No. 1:17-cv-02989 Doc. No. 964. See, p. 22-23 (“This array of experts and subject matter
specialists provided a huge volume of significant evidence regarding the security risks and deficits
in the system as implemented in both witness declarations and live testimony at the preliminary
injunction hearing.”); p. 25 (“In particular, Dr. Halderman’s testing indicated the practical
feasibility through a cyber attack of causing the swapping or deletion of specific votes cast and the
compromise of the system through different cyber attack strategies, including through access to
and alteration or manipulation of the QR barcode.”) The full order should be read, for it is eyeopening and refutes many of Dominion’s erroneous claims and talking points.
66. A District Judge found that Dominion’s BMD ballots are not voter verifiable, and they
cannot be audited in a software independent way. The credibility of a BMD ballot can be no greater
than the credibility of Dominion’s systems, which copious expert analysis has shown is deeply
compromised. Similar to the issues in Wisconsin, Judge Totenberg of the District Court of Georgia
See attached hereto, as Exh. 11, State of Texas Secretary of State, Elections Division, Report
of Review of Dominion Voting Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020) (emphasis
added).
5

21

449

Case 2:20-cv-01771-PP Filed 12/03/20 Page 21 of 51 Document 9

Northern District held:
Georgia’s Election Code mandates the use of the BMD system as the uniform mode
of voting for all in-person voters in federal and statewide elections. O.C.G.A. § 212-300(a)(2). The statutory provisions mandate voting on “electronic ballot
markers” that: (1) use “electronic technology to independently and privately mark
a paper ballot at the direction of an elector, interpret ballot selections, ... such
interpretation for elector verification, and print an elector verifiable paper
ballot;” and (2) “produce paper ballots which are marked with the elector’s choices
in a format readable by the elector” O.C.G.A. § 21-2-2(7.1); O.C.G.A. § 21-2300(a)(2). Plaintiffs and other voters who wish to vote in-person are required to
vote on a system that does none of those things. Rather, the evidence shows that
the Dominion BMD system does not produce a voter-verifiable paper ballot or
a paper ballot marked with the voter’s choices in a format readable by the
voter because the votes are tabulated solely from the unreadable QR code.
See Order, pp. 81-82. (Emphasis added).
67. This case was later affirmed in a related case, in the Eleventh Circuit in 2018 related to
Georgia’s voting system in Common Cause Georgia v. Kemp, 347 F. Supp. 3d 1270 (11th Cir.
2018). The Court found,
In summary, while further evidence will be necessary in the future, the Court
finds that the combination of the statistical evidence and witness declarations
in the record here (and the expert witness evidence in the related Curling case
which the Court takes notice of) persuasively demonstrates the likelihood of
Plaintiff succeeding on its claims. Plaintiff has shown a substantial likelihood
of proving that the Secretary’s failure to properly maintain a reliable and
secure voter registration system has and will continue to result in the
infringement of the rights of the voters to cast their vote and have their votes
counted.
Id.at 1294-1295.
68. The expert witness in the above litigation in the United States District Court of
Georgia, Case 1:17-cv-02989-AT, Harri Hursti, specifically testified to the acute security
vulnerabilities, see Exh. 107, wherein he testified or found:
A. “The scanner and tabulation software settings being employed to
determine which votes to count on hand marked paper ballots are
likely causing clearly intentioned votes to be counted ” “The voting
system is being operated in Fulton County in a manner that escalat e s
22

450

Case 2:20-cv-01771-PP Filed 12/03/20 Page 22 of 51 Document 9

the security risk to an extreme level” “Votes are not reviewing their
BMD printed ballots, which causes BMD generated results to be unauditable due to the untrustworthy audit trail.” 50% or more of voter
selections in some counties were visible to poll workers. Dominio n
employees maintain near exclusive control over the EMS servers. “In
my professional opinion, the role played by Dominion personnel in
Fulton County, and other counties with similar arrangements, should
be considered an elevated risk factor when evaluating the securit y
risks of Georgia’s voting system.” Id. ¶26.
B. A video game download was found on one Georgia Dominion system
laptop, suggesting that multiple Windows updates have been made on
that respective computer.
C. There is evidence of remote access and remote troubleshooting which
presents a grave security implication.
D. Certified identified vulnerabilities should be considered an “extreme
security risk.”
E. There is evidence of transfer of control the systems out of the physic a l
perimeters and place control with a third party off site.
F. USB drives with vote tally information were observed to be remov ed
from the presence of poll watchers during a recent election.
G. “The security risks outlined above – operating system risks, the
failure to harden the computers, performing operations directly on the
operating systems, lax control of memory cards, lack of procedur e s,
and potential remote access are extreme and destroy the credibility of
the tabulations and output of the reports coming from a voting
system.” Id. ¶49.
C. Foreign Interference/Hacking and/or Manipulation of Dominio n
Results.
1. Evidence of Vulnerability to Foreign Hackers.
69. In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY
ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
23

451

Case 2:20-cv-01771-PP Filed 12/03/20 Page 23 of 51 Document 9

actor targeting U.S. state websites to include election websites. CISA and the FBI
assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related
disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election.
(See CISA and FBI Joint Cyber Security Advisory of October 30, 2020, a copy attached hereto as
Exh. 18.)
70. An analysis of the Dominion software system by a former US Military Intelligence
expert subsequently found that the Dominion Voting system and software are accessible - and was
compromised by rogue actors, including foreign interference by Iran and China. (See Exh. 12,
Spider Declaration, (who remains redacted for security reasons).)
71. The expert does an analysis and explains how by using servers and employees connected
with rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, Dominion allowed foreign adversaries to access data and intentionally provided
access to Dominion’s infrastructure in order to monitor and manipulate elections, including the
most recent one in 2020. (See Exh. 12, Spider Declaration. Several facts are set forth related to
foreign members of Dominion Voting Systems and foreign servers as well as foreign
interference.).
72. Another Declarant first explains the foundations of her opinion and then addresses the
concerns of foreign interference in our elections through hardware components from companies
based in foreign countries with adverse interests. She explains that Dominion Voting Systems
works with SCYTL, and that votes on route, before reporting, go to SCYTL in foreign countries.
On the way, they get mixed and an algorithm is applied, which is done through a secretive process.
The core software used by ALL SCYTL related Election Machine/Software
manufacturers ensures “anonymity” Algorithms within the area of this “shuffling”
24

452

Case 2:20-cv-01771-PP Filed 12/03/20 Page 24 of 51 Document 9

to maintain anonymity allows for setting values to achieve a desired goal under the
guise of “encryption” in the trap-door…
(See Exh. 13, Aff. of Computer analysis, at par. 32).
73. The Affiant goes on to explain the foreign relationships in the hardware used by
Dominion Voting Systems and its subsidiary Sequoia and explains specifically the port that
Wisconsin uses, which is called Edge Gateway and that is a part of Akamai Technologies based in
Germany:
“Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES
based out of GERMANY. Using AKAMAI Technologies is allowing .gov sites to
obfuscate and mask their systems by way of HURRICANE ELECTRIC (he.net)”
74. This Declarant further explains the foundations of her opinion and then addresses the
concerns of foreign interference in our elections through hardware components from companies
based in foreign countries with adverse interests.
The concern is the HARDWARE and the NON – ACCREDITED VSTLs as by
their own admittance use COTS. The purpose of VSTL’s being accredited and their
importance is ensuring that there is no foreign interference / bad actors accessing
the tally data via backdoors in equipment software. The core software used by ALL
SCYTL related Election Machine/Software manufacturers ensures “anonymity”.
Algorithms within the area of this “shuffling” to maintain anonymity allows
for setting values to achieve a desired goal under the guise of “encryption” in
the trap-door…
(See Id. at ¶32).
75. This Declarant goes on to explain the foreign relationships in the hardware used by
Dominion Voting Systems and its subsidiary Sequoia and specifically the port that Wisconsin uses:
“Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES
based out of GERMANY. Using AKAMAI Technologies is allowing .gov sites to
obfuscate and mask their systems by way of HURRICANE ELECTRIC (he.net)
Kicking it to anonymous (AKAMAI Technologies) offshore servers.
Wisconsin Port.
China is not the only nation involved in COTS provided to election machines or the
networking but so is Germany via a LAOS founded Chinese linked cloud service
25

453

Case 2:20-cv-01771-PP Filed 12/03/20 Page 25 of 51 Document 9

company that works with SCYTL named Akamai Technologies that have offices
in China and are linked to the server [for] Dominion Software.
(See Id. at par. 21).
76. The Affiant explains the use of an algorithm and how it presents throughout the statement,
but specifically concludes that,
The “Digital Fix” observed with an increased spike in VOTES for Joe Biden
can be determined as evidence of a pivot. Normally it would be assumed that the
algorithm had a Complete Pivot. Wilkinson’s demonstrated the guarantee as:

Such a conjecture allows the growth factor the ability to be upper bound by values
closer to n. Therefore, complete pivoting can’t be observed because there would be
too many floating points. Nor can partial as the partial pivoting would overwhelm
after the “injection” of votes. Therefore, external factors were used which is evident
from the “DIGITAL FIX.” (See Id. at pars. 67-69)
“The algorithm looks to have been set to give Joe Biden a 52% win even with an
initial 50K+ vote block allocation was provided initially as tallying began (as in
case of Arizona too). In the am of November 4, 2020 the algorithm stopped
working, therefore another “block allocation” to remedy the failure of the
algorithm. This was done manually as ALL the SYSTEMS shut down
NATIONWIDE to avoid detection.”
(See Id. at par. 73)
2. Background of Dominion Connections to Smartmatic and Hostile
Foreign Governments.
77. An expert analysis by Russ Ramsland agrees with the data reflecting the use of an
algorithm that causes the spike in the data feed, which is shown to be an injection of votes to
change the outcome, because natural reporting does not appear in such a way.
78. And Russ Ramsland can support that further by documenting the data feed that came from
Dominion Voting Systems to Scytl -- and was reported with decimal points, which is contrary to
one vote as one ballot: “The fact that we observed raw vote data coming directly that includes
26

454

Case 2:20-cv-01771-PP Filed 12/03/20 Page 26 of 51 Document 9

decimal places establishes selection by an algorithm, and not individual voter’s choice.
Otherwise, votes would be solely represented as whole numbers (votes cannot possibly be
added up and have decimal places reported).”
79. The report concludes that “Based on the foregoing, I believe these statistical anomalies
and impossibilities compels the conclusion to a reasonable degree of professional certainty that the
vote count in Wisconsin, in particular for candidates for President contain at least 119,430 (Para.
13) up to 384,085 (Para. 15) illegal votes that must be disregarded. In my opinion, it is not possible
at this time to determine the true results of the Wisconsin vote for President of the United States.”
The History of Dominion Voting Systems
80. Plaintiff can also show Smartmatic’s incorporation and inventors who have
background s evidencing their foreign connections, including Serbia, specifically its
identified inventors:
Applicant: SMARTM ATIC, CORP.
Inventors: Lino Iglesias, Roger Pinate, Antonio Mugica, Paul Babic, Jeff rey
Naveda, Dany Farina, Rodrigo Meneses, Salvador Ponticelli, Gisela
Goncalves, Yrem Caruso6
81. Another Affiant witness testifies that in Venezuela, she was in official positio n
related to elections and witnessed manipulations of petitions to prevent a removal of
President Chavez and because she protested, she was summarily dismissed. She explain s
the vulnerabilities of the electronic voting system and Smartmatica to such manipulatio n s.
(See Exh. 17, Cardozo Aff. ¶8).

See Patents Assigned to Smartmatic Corp., available at:
https://patents.justia.com/assignee/smartmatic-corp
6

27

455

Case 2:20-cv-01771-PP Filed 12/03/20 Page 27 of 51 Document 9

3. US Government Warnings Regarding Hacking by Hostile Foreig n
Governments.
82. In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY
ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
actor targeting U.S. state websites to include election websites. CISA and the FBI
assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related
disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election.
(See Exh. 18, CISA and FBI Joint Cyber Security Advisory of October 30, 2020)
D. Additional Independent Findings of Dominion Flaws.
83. Further supportive of this pattern of incidents, reflecting an absence of mistake, Plaintiff
has since learned that the “glitches” in the Dominion system, that have the uniform effect of hurting
Trump and helping Biden, have been widely reported in the press and confirmed by the analysis
of independent experts.
1. Central Operator Can Remove, Discard or Manipulate Votes.
84. Mr. Watkins further explains that the central operator can remove or discard batches
of votes. “After all of the ballots loaded into the scanner’s feed tray have been through the scanner,
the “ImageCast Central” operator will remove the ballots from the tray then have the option to
either “Accept Batch” or “Discard Batch” on the scanning menu …. “ (Exh. 106, Watkins aff.
¶11). ¶8.
85. Mr. Watkins further testifies that the user manual makes clear that the system allows for
28

456

Case 2:20-cv-01771-PP Filed 12/03/20 Page 28 of 51 Document 9

threshold settings to be set to find all ballots get marked as “problem ballots” for discretionary
determinations on where the vote goes stating:
9. During the ballot scanning process, the “ImageCast Central” software will detect
how much of a percent coverage of the oval was filled in by the voter. The
Dominion customer determines the thresholds of which the oval needs to be
covered by a mark in order to qualify as a valid vote. If a ballot has a marginal mark
which did not meet the specific thresholds set by the customer, then the ballot is
considered a “problem ballot” and may be set aside into a folder named
“NotCastImages”.
10. Through creatively tweaking the oval coverage threshold settings, and
advanced settings on the ImageCase Central scanners, it may be possible to set
thresholds in such a way that a non-trivial amount of ballots are marked “problem
ballots” and sent to the “NotCastImages” folder.
11. The administrator of the ImageCast Central work station may view all images
of scanned ballots which were deemed “problem ballots” by simply navigating
via the standard “Windows File Explorer” to the folder named “NotCastImages”
which holds ballot scans of “problem ballots”. It may be possible for an
administrator of the “ImageCast Central” workstation to view and delete any
individual ballot scans from the “NotCastImages” folder by simply using the
standard Windows delete and recycle bin functions provided by the Windows 10
Pro operating system. Id. ¶¶ 9-11.
2. Dominion – By Design – Violates Federal Election & Voting Record
Retention Requirements.
86. The Dominion System put in place by its own design violates the intent of Federal law
on the requirement to preserve and retain records – which clearly requires preservation of all
records requisite to voting in such an election.
§ 20701. Retention and preservation of records and papers by officers of
elections; deposit with custodian; penalty for violation
Every officer of election shall retain and preserve, for a period of twenty two months from the date of any general, special, or primary election of
which candidates for the office of President, Vice President, president ia l
elector, Member of the Senate, Member of the House of Representatives, or
Resident Commissioner from the Commonwealth of Puerto Rico are voted
for, all records and papers which come into his possession relating to
any application, registration, payment of poll tax, or other act requis it e
to voting in such election, except that, when required by law, such record s
and papers may be delivered to another officer of election and except that,
29

457

Case 2:20-cv-01771-PP Filed 12/03/20 Page 29 of 51 Document 9

if a State or the Commonwealth of Puerto Rico designates a custodian to
retain and preserve these records and papers at a specified place, then such
records and papers may be deposited with such custodian, and the duty to
retain and preserve any record or paper so deposited shall devolve upon
such custodian. Any officer of election or custodian who willfully fails to
comply with this section shall be fined not more than $1,000 or impris o ned
not more than one year, or both.
See 52 USC § 20701.
3. Dominion Vulnerabilities to Hacking.
87. Plaintiff has since learned that the “glitches” in the Dominion system -- that have
the uniform effect of hurting Trump and helping Biden -- have been widely reported in
the press and confirmed by the analysis of independent experts, a partial summary of
which is included below.
(1) Users on the ground have full admin privileges to machines and
software. The Dominion system is designed to facilitate vulnerability
and allow a select few to determine which votes will be counted in any
election. Workers were responsible for moving ballot data from pollin g
place to the collector’s office and inputting it into the correct folder. Any
anomaly, such as pen drips or bleeds, is not counted and is handed over
to a poll worker to analyze and decide if it should count. This creates
massive opportunity for improper vote adjudication. (Exh. 106 Watkins
aff. ¶¶8 & 11).
(2) Affiant witness (name redacted for security reasons), in his sworn
testimony explains he was selected for the national security guard detail
of the President of Venezuela, and that he witnessed the creation of
Smartmatic for the purpose of election vote manipulation:
I was witness to the creation and operation of a sophisticated electro nic
voting system that permitted the leaders of the Venezuelan govern m ent
to manipulate the tabulation of votes for national and local elections and
select the winner of those elections in order to gain and maintain their
power. Importantly, I was a direct witness to the creation and operatio n
of an electronic voting system in a conspiracy between a compan y
known as Smartmatic and the leaders of conspiracy with the Venezu e la n
government. This conspiracy specifically involved President Hugo
Chavez Frias, the person in charge of the National Electoral Council
named Jorge Rodriguez, and principals, representatives, and person ne l
from Smartmatic which included … The purpose of this conspiracy was
30

458

Case 2:20-cv-01771-PP Filed 12/03/20 Page 30 of 51 Document 9

to create and operate a voting system that could change the votes in
elections from votes against persons running the Venezu e la n
government to votes in their favor in order to maintain control of the
government. (Id. ¶¶6, 9, 10).
88. Specific vulnerabilities of the systems in question that have been well document ed
or reported include:
A. Barcodes can overrid e the voters’ vote: As one University of Califor n ia,
Berkeley study shows, “In all three of these machines [includ in g
Dominion Voting Systems] the ballot marking printer is in the same
paper path as the mechanism to deposit marked ballots into an attached
ballot box. This opens up a very serious security vulnerability: the
voting machine can make the paper ballot (to add votes or spoil alread y case votes) after the last time the voter sees the paper, and then deposit
that marked ballot into the ballot box without the possibility of
detection.” (See Exh. 2, Appel Study).
B. Voting machines were able to be connected to the internet by way of
laptops that were obviously internet accessible. If one laptop was
connected to the internet, the entire precinct was compromised.
C. October 6, 2006 – Congresswom an Carolyn Maloney calls on
Secretary of Treasury Henry Paulson to conduct an investiga t io n
into Smartm atic based on its foreign ownership and ties to
Venezuela. (See Exh. 15). Congresswoman Maloney wrote that “It is
undisputed that Smartmatic is foreign owned and it has acquired Sequoia
… Smartmatic now acknowledged that Antonio Mugica, a Venezu e la n
businessman has a controlling interest in Smartmatica, but the compan y
has not revealed who all other Smartmatic owners are. Id.
D. Dominion “got into trouble” with several subsidiaries it used over
alleged cases of fraud. One subsidiary is Smartmatic, a company “that
has played a significant role in the U.S. market over the last decad e. ” 7
Dominion entered into a 2009 contract with Smartmatic and provid ed
Smartmatic with the PCOS machines (optical scanners) that were used
in the 2010 Philippine election, the biggest automated election run by a
private company. The automation of that first election in the Philipp ine s
was hailed by the international community and by the critics of the
automation. The results transmission reached 90% of votes four hours
after polls closed and Filipinos knew for the first time who would be
Voting Technology Companies in the U.S. – Their Histories and Present Contributions,
Access Wire, (Aug. 10, 2017), available at: https://www.accesswire.com/471912/VotingTechnology-Companies-in-the-US--Their-Histories.
7

31

459

Case 2:20-cv-01771-PP Filed 12/03/20 Page 31 of 51 Document 9

their new president on Election Day. In keeping with local Election law
requirements, Smartmatic and Dominion were required to provide the
source code of the voting machines prior to elections so that it could be
independently verified. Id.
E. Litigation over Smartmatic “glitches” alleges they impacted the 2010
and 2013 mid-term elections in the Philippines, raising questions of
cheating and fraud. An independent review of the source codes used in
the machines found multiple problems, which concluded , “The software
inventory provided by Smartmatic is inadequate, … which brings into
question the software credibility.”8
F. Dominion acquired Sequoia Voting Systems as well as Premier Election
Solutions (formerly part of Diebold, which sold Premier to ES&S in
2009, until antitrust issues forced ES&S to sell Premier, which then was
acquired by Dominion). This map illustrates 2016 voting machin e
data—meaning, these data do not reflect geographic aggregation at the
time of acquisition, but rather the machines that retain the Sequoia or
Premier/Diebold brand that now fall under Dominion ’s market share.
Penn Wharton Study at 16.
G. In late December of 2019, three Democrat Senators, Warren, Klobuch a r,
Wyden and House Member Mark Pocan wrote about their
‘particularized concerns that secretive & “trouble -plagued companie s” ‘
“have long skimped on security in favor of convenience, ” in the context
of how they described the voting machine systems that three large
vendors – Election Systems & Software, Dominion Voting Systems, &
Hart InterCivic – collectively provide voting machines & software that
facilitate voting for over 90% of all eligible voters in the U.S.” (See
Exh. 16).
H. Senator Ron Wyden (D-Oregon) said the findings [insecurity of voting
systems] are “yet another damning indictment of the profitee r in g
election vendors, who care more about the bottom line than protectin g
our democracy.” It’s also an indictment, he said, “of the notion that
important cybersecurity decisions should be left entirely to county
election offices, many of whom do not employ a single cybersecu r ity
specialist.”9

Smartmatic-TIM Running Out of Time to Fix Glitches, ABS-CBN News (May 4, 2010),
available at: https://news.abs-cbn.com/nation/05/04/10/smartmatic-tim-running-out-time-f ixglitches.
8

Kim Zetter, Exclusive: Critical U.S. Election Systems Have Been Left Exposed Online Despite
Official Denials, VICE (Aug. 8, 2019) (“VICE Election Article”), available at:
9

32

460

Case 2:20-cv-01771-PP Filed 12/03/20 Page 32 of 51 Document 9

89. The House of Representatives passed H.R. 2722 in an attempt to address these
very risks on June 27, 2019:
This bill addresses election security through grant
requirements for voting systems and paper ballots.

programs

and

The bill establishes requirements for voting systems, including that
systems (1) use individual, durable, voter-verif ied paper ballots; (2) make
a voter’s marked ballot available for inspection and verification by the
voter before the vote is cast; (3) ensure that individuals with disabilit ie s
are given an equivalent opportunity to vote, including with privacy and
independence, in a manner that produces a voter-verif ied paper ballot; (4)
be manufactured in the United States; and (5) meet specified cybersecur it y
requirements, including the prohibition of the connection of a voting
system to the internet.
See H.R. 2722.
E. Because Dominion Senior Management Has Publicly Express e d
Hostility to Trump and Opposition to His Election, Dominion Is Not
Entitled to Any Presumption of Fairness, Objectivity or
Impartiality, and Should Instead Be Treated as a Hostile Partis a n
Political Actor.
90. Dr. Eric Coomer is listed as the co-inventor for several patents on ballot
adjudication and voting machine-related technology, all of which were assigned to
Dominion.10 He joined Dominion in 2010, and most recently served as Voting Systems

https://www.vice.com/en/article/3kxzk9/exclusive-critical-us-election-systems
exposed-online-despite-official-denials.

have-been-left-

See “Patents by Inventor Eric Coomer,” available at:
https://patents.justia.com/inventor/eric-coomer. This page lists the following patents
issued to Dr. Coomer and his co-inventors: (1) U.S. Patent No. 9,202,113, Ballot
Adjudication in Voting Systems Utilizing Ballot Images (issued Dec. 1, 2015); (2) U.S.
Patent No. 8,913,787, Ballot Adjudication in Voting Systems Utilizing Ballot Images
(issued Dec. 16, 2014); (3) U.S. Patent No. 8,910,865, Ballot Level Security Features for
Optical Scan Voting Machine Capable of Ballot Image Processing, Secure Ballot
Printing, and Ballot Layout Authentication and Verification (issued Dec. 16, 2014); (4)
U.S. Patent No. 8,876,002, Systems for Configuring Voting Machines, Docking Device
for Voting Machines, Warehouse Support and Asset Tracking of Voting Machines (issu ed
Nov. 4, 2014); (5) U.S. Patent No. 8,864,026, Ballot Image Processing System and
10

33

461

Case 2:20-cv-01771-PP Filed 12/03/20 Page 33 of 51 Document 9

Officer of Strategy and Director of Security for Dominion.

Dr. Coomer first joined

Sequoia Voting Systems in 2005 as Chief Software Architect and became Vice Presid ent
of Engineering before Dominion Voting Systems acquired Sequoia.

Dr. Coome r ’ s

patented ballot adjudication technology into Dominion voting machines sold through out
the United States, including those used in Wisconsin. See Exh. 6 (Jo Oltmann Affidavit ).
91. In 2016, Dr. Coomer admitted to the State of Illinois that Dominion Voting
machines can be manipulated remotely.11 He has also publicly posted videos explain in g
how Dominion voting machines can be remotely manipulated. See Id.12
92. Dr. Coomer has emerged as Dominion’s principal defender, both in litigatio n
alleging that Dominion rigged elections in Georgia and in the media. An examination of
his previous public statements has revealed that Dr. Coomer is highly partisan and even
more anti-Trump, precisely the opposite of what would expect from the management of
a company charged with fairly and impartially counting votes (which is presumably why
he tried to scrub his social media history). (See Id.)
93. Unfortunately for Dr. Coomer, however, a number of these posts have been
captured for perpetuity. Below are quotes from some of his greatest President Trump and
Trump voter hating hits to show proof of motive and opportunity. (See Id).
Method for Voting Machines (issued Oct. 21, 2014); (6) U.S. Patent No. 8,714,4 5 0,
Systems and Methods for Transactional Ballot Processing, and Ballot Auditing (issu ed
May 6, 2014), available at: https://patents.justia.com/inventor/eric-coomer.
Jose Hermosa, Electoral Fraud: Dominion’s Vice President Warned in 2016 That VoteCounting Systems Are Manipulable, The BL (Nov. 13, 2020), available at: https://thebl.com/usnews/electoral-fraud-dominions-vice-president-warned-in-2016-that-vote-counting-systems-aremanipulable.html.
11

See, e.g., “Eric Coomer Explains How to Alter Votes in the Dominion Voting System” (Nov.
24, 2020) (excerpt of presentation delivered in Chicago in 2017), available at:
https://www.youtube.com/watch?v=UtB3tLaXLJE.
12

34

462

Case 2:20-cv-01771-PP Filed 12/03/20 Page 34 of 51 Document 9

If you are planning to vote for that autocratic, narcissistic, fascist ass-hat
blowhard and his Christian jihadist VP pic, UNFRIEND ME NOW! No,
I’m not joking. … Only an absolute F[**]KI NG IDIOT could ever vote for
that wind-bag fuck-tard FASCIST RACIST F[**]K! … I don’t give a damn
if you’re friend, family, or random acquaintance, pull the lever, mark an
oval, touch a screen for that carnival barker … UNFRIEND ME NOW! I
have no desire whatsoever to ever interact with you. You are beyond hope,
beyond reason. You are controlled by fear, reaction and bullsh[*]t. Get
your shit together. F[**]K YOU! Seriously, this f[**]king ass-clown stand s
against everything that makes this country awesome! You want in on that?
You [Trump voters] deserve nothing but contempt. Id. (July 21, 2016
Facebook post).13
94. In a rare moment of perhaps unintentional honesty, Dr. Coomer anticipates this
Amended Complaint and many others, by slandering those seeking to hold election
riggers like Dominion to account and to prevent the United States’ descent into
Venezuelan levels of voting fraud and corruption out of which Dominion was born:
Excerpts in stunning Trump-supporter logic, “I know there is a lot of voter
fraud. I don’t know who is doing it, or how much is happening, but I know
it is going on a lot.” This beautiful statement was followed by, “It happens
in third world countries, this the US, we can’t let it happen here.” Id.
(October 29, 2016 Facebook post); (See also Exh. 6)
95. Dr. Coomer, who invented the technology for Dominion ’s voting fraud and has
publicly explained how it can be used to alter votes, seems to be extremely hostile to those
who would attempt to stop it and uphold the integrity of elections that underpins the
legitimacy of the United States government:
And in other news… There be some serious fuckery going on right here
fueled by our Cheeto-in-Chief stoking lie after lie on the flames of [Kris]
Kobach… [Linking Washington Post article discussing the President ia l
Advisory Commission on Election Integrity, of which former Kansas
Secretary of State Kris Kobach was a member, entitled, “The voting
commission is a fraud itself. Shut it down.”] Id. (September 14, 2017
Facebook post.] (Id.)

In this and other quotations from Dr. Coomer’s social media, Plaintiff has redacted certain
profane terms.
13

35

463

Case 2:20-cv-01771-PP Filed 12/03/20 Page 35 of 51 Document 9

96. Dr. Coomer also keeps good company, supporting and reposting ANTI FA
statements slandering President Trump as a “fascist ” and by extension his supporte r s,
voters and the United States military (which he claims, without evidence, Trump will
make into a “fascist tool”). Id. (June 2, 2020 Facebook post). Lest someone claims that these
are “isolated statements” “taken out of context”, Dr. Coomer has affirmed that he shares
ANTIFA’s taste in music and hatred of the United States of America, id. (May 31, 2020 Facebook
post linking “F[**]k the USA” by the exploited), and the police. Id. (separate May 31, 2020
Facebook posts linking N.W.A. “F[**]k the Police” and a post promoting phrase “Dead Cops”).
Id. at 4-5.
97. Affiant and journalist Joseph Oltmann researched ANTIFA in Colorado.

Id. at

1. “On or about the week of September 27, 2020,” he attended an Antifa meeting which
appeared to be between Antifa members in Colorad o Springs and Denver Colorad o, ”
where Dr. Coomer was present. In response to a question as to what Antifa would do “if
Trump wins this … election?”, Dr. Coomer respond ed “Don’t worry about the electio n.
Trump is not going to win. I made f[**]king sure of that … Hahaha.” Id. at 2.
98. By putting an anti-Trump zealot like Dr. Coomer in charge of election “Security,” and
using his technology for what should be impartial “ballot adjudication,” Dominion has given the
fox the keys to the hen house and has forfeited any presumption of objectivity, fairness, or even
propriety. It appears that Dominion does not care about even an appearance of impropriety, as its
most important officer has his fingerprints all over a highly partisan, vindictive, and personal
vendetta against the Republican nominee both in 2016 and 2020, President Donald Trump. Dr.
Coomer’s highly partisan anti-Trump rages show clear motive on the part of Dominion to rig the
election in favor of Biden, and may well explain why for each of the so-called “glitches”
36

464

Case 2:20-cv-01771-PP Filed 12/03/20 Page 36 of 51 Document 9

uncovered, it is always Biden receiving the most votes on the favorable end of such a “glitch.”
(Id.)
99. In sum, as set forth above, for a host of independ ent reasons, the Wiscon s in
election results conclud ing that Joe Biden received 20,608 more votes that Presid ent
Donald Trump must be set aside.
COUNT I
Defendants Violated the Elections and Electors Clauses and 42 U.S.C. § 1983.
100. Plaintiff realleges all preceding paragraphs as if fully set forth herein.
101. The Electors Clause states that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors” for President. U.S. Const. art. II, §1, cl. 2
(emphasis added). Likewise, the Elections Clause of the U.S. Constitution states that “[t]he Times,
Places, and Manner of holding Elections for Senators and Representatives, shall be prescribed in
each State by the Legislature thereof.” U.S. Const. art. I, § 4, cl. 1 (emphasis added).
102. The Legislature is “‘the representative body which ma[kes] the laws of the
people.’” Smiley v. Holm, 285 U.S. 355, 365 (1932).

Regulations for president ia l

elections, thus, “must be in accordance with the method which the state has prescrib ed
for legislative enactments.”

Id. at 367; see also Ariz. State Legislature v. Ariz. Indep.

Redistricting Comm’n, 135 S. Ct. 2652, 2668 (2015).
103. Defendants are not part of the Wisconsin Legislature and cannot exercis e
legislative power. Because the United States Constitution reserves for the Wisco n s in
Legislature the power to set the time, place, and manner of holding elections for the
President and Congress, county boards of elections and state executive officers have no
authority to unilaterally exercise that power, much less to hold them in ways that conflict
37

465

Case 2:20-cv-01771-PP Filed 12/03/20 Page 37 of 51 Document 9

with existing legislation.
104. Section

I details three separate

Wisconsin Election Code.

instances

where Defendants violated

the

First, WEC May 23, 2020 “guidance” on the treatment of

“indefinitely confined” voters, who are exempt from Wisconsin’s photo ID require m ent
for absentee ballot application, that directly contravened the express requirement in
Wisconsin Election Code that clerks “shall” remove an allegedly “indefinitely confined ”
voter if the clerk has “reliable information” that that voter is not, or is no longer,
“indefinitely confined.”
105. Second, the WEC’s October 18, 2016 guidance directed clerks to violate the
express requirements of Wisconsin Statutes § 6.87(6)(d ), which states “[i]f a certificate is
missing the address of a witness the ballot may not be counted,” when it directed clerks
to fill in missing information on absentee ballot envelopes.
106. Third, WEC and Wisconsin election officials violated Wisconsin Election Code,
or acted ultra vires, insofar as they filled in missing witness or voter information on
absentee ballots and permitted voters to cure ballots without statutory authorizatio n.
Section II provides expert witness testimony quantifying the number of illegal or
ineligible ballots that were counted, and lawful ballots that were not, as a result of these
and Defendants’ other violations.
107. A report from Dr. William Briggs, shows that there were approximately 29,594 absentee
ballots listed as “unreturned” by voters that either never requested them, or that requested and
returned their ballots.
108. Evidence compiled by Matt Braynard, Exh. 3, using the National Change of Address
(“NCOA”) Database shows that 6,207 Wisconsin voters in the 2020 General Election moved out38

466

Case 2:20-cv-01771-PP Filed 12/03/20 Page 38 of 51 Document 9

of-state prior to voting, and therefore were ineligible. Mr. Braynard also identified 765 Wisconsin
voters who subsequently registered to vote in another state and were therefore ineligible to vote in
the 2020 General Election. The merged number is 6,966 ineligible voters whose votes must be
removed from the total for the 2020 General Election.
109. Plaintiff has no adequate remedy at law and will suffer serious and irrepara b le
harm unless the injunctive relief requested herein is granted. Defendants have acted and ,
unless enjoined, will act under color of state law to violate the Elections Clause.
110. Accordingly, the results for President in the November 3, 2020 election must be
set aside, the State of Wisconsin should be enjoined from transmitting the certified the
results thereof, and this Court should grant the other declaratory and injunctive relief
requested herein.
COUNT II
Governor Evers and Other Defendants Violated The Equal
Protection Clause of the Fourteenth Amendment U.S. Const.
Amend. XIV & 42 U.S.C. § 1983
Invalid Enactment of Regulations & Disparate Treatment of
Absentee vs. Mail-In Ballots
111. Plaintiff refers to and incorporate by reference each of the prior paragraphs of this
Amended Complaint as though the same were repeated at length herein.
112. The Fourteenth Amendment of the United States Constitution provides “nor shall any
state deprive any person of life, liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection of the laws. See also Bush v.
Gore, 531 U.S. 98, 104 (2000) (having once granted the right to vote on equal terms, the
State may not, by later arbitrary and disparate treatment, value one person ’s vote over the
value of another’s). Harper v. Va. Bd. of Elections, 383 U.S. 663, 665 (1966) (“Once the
39

467

Case 2:20-cv-01771-PP Filed 12/03/20 Page 39 of 51 Document 9

franchise is granted to the electorate, lines may not be drawn which are inconsistent with
the Equal Protection Clause of the Fourteenth Amend ment. ”). The Court has held that to
ensure equal protection, a problem inheres in the absence of specific standards to ensure
its equal application. Bush, 531 U.S. at 106 (“The formulation of uniform rules to
determine intent based on these recurring circumstances is practicable and, we conclud e,
necessary.”).
113. The equal enforcement of election laws is necessary to preserve our most basic
and fundamental rights. The requirement of equal protection is particularly stringe nt ly
enforced as to laws that affect the exercise of fundamental rights, including the right to
vote.
114. The disparate treatment of Wisconsin voters, in subjecting one class of voters to greater
burdens or scrutiny than another, violates Equal Protection guarantees because “the right of
suffrage can be denied by a debasement or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of the franchise.” Reynolds v. Sims, 377
U.S. 533, 555 (1964); Rice v. McAlister, 268 Ore. 125, 128, 519 P.2d 1263, 1265 (1975);
Heitman v. Brown Grp., Inc., 638 S.W.2d 316, 319, 1982 Mo. App. LEXIS 3159, at *4 (Mo. Ct.
App. 1982); Prince v. Bear River Mut. Ins. Co., 2002 UT 68, ¶ 41, 56 P.3d 524, 536-37 (Utah
2002).
115. In statewide and federal elections conducted in the State of Wisconsin, includ in g
without limitation the November 3, 2020 General Election, all candidates, politica l
parties, and voters, including without limitation Plaintiff, in having the election laws
enforced fairly and uniformly.
116. As set forth in Section I above, Defendants failed to comply with the requireme nt s
40

468

Case 2:20-cv-01771-PP Filed 12/03/20 Page 40 of 51 Document 9

of the Wisconsin Election Code and thereby diluted the lawful ballots of the Plaintiff and
of other Wisconsin voters and electors in violation of the United States Constitut ion
guarantee of Equal Protection. Further, Defendants enacted regulations, or issued
guidance, that had the intent and effect of favoring one class of voters – Democr atic
absentee voters – over Republican voters. Further, all of these invalid ly enacted rules by
Defendant Wisconsin executive and administrative agencies, had the intent and effect of
eliminating protections against voter fraud, and thereby enabled and facilitated the
counting of fraudulent, unlawful and ineligible votes, which were quantified in Section
II. Finally, Section III details the additional voting fraud and manipulation enabled by
the use Dominion voting machines, which had the intent and effect of favoring Biden and
Democratic voters and discriminating against Trump and Republican voters.
117. Defendants have acted and will continue to act under color of state law to violate
Plaintiff ’s right to be present and have actual observation and access to the electora l
process as secured by the Equal Protection Clause of the United States Constitutio n.
Defendants thus failed to conduct the general election in a uniform manner as required by
the Equal Protection Clause of the Fourteenth Amendment, the corollary provisions of the
Wisconsin Constitution, and the Wisconsin Election Code.
118. Plaintiff seeks declaratory and injunctive relief forbidding Defendants from
certifying a tally that includes any ballots that were not legally cast, or that were switched
from Trump to Biden through the unlawful use of Dominion Democracy Suite software
and devices.
119. The Briggs analysis identified two specific errors involving unreturned mail-in ballots
that are indicative of voter fraud, namely: “Error #1: those who were recorded as receiving
41

469

Case 2:20-cv-01771-PP Filed 12/03/20 Page 41 of 51 Document 9

absentee ballots without requesting them;” and “Error #2: those who returned absentee ballots
but whose votes went missing (i.e., marked as unreturned).” Clearly the dilution of lawful votes
violates the Equal Protection clause; and the counting of unlawful votes violates the rights of
lawful Citizens.
120. In addition, Plaintiff asks this Court to order that no ballot processed by a countin g
board in the Wisconsin Counties can be included in the final vote tally unless a challe n ge r
was allowed to meaningf ully observe the process and handling and counting of the ballot,
or that were unlawfully switched from Trump to Biden.
121. Plaintiff has no adequate remedy at law and will suffer serious and irrepara b le
harm unless the declaratory and injunctive relief requested herein is granted. Indeed, the
setting aside of an election in which the people have chosen their representative is a
drastic remedy that should not be undertaken lightly, but instead should be reserved for
cases in which a person challenging an election has clearly established a violation of
election procedures and has demonstrat ed that the violation has placed the result of the
election in doubt. Wisconsin law allows elections to be contested through litigation, both
as a check on the integrity of the election process and as a means of ensuring the
fundamental right of citizens to vote and to have their votes counted accurately.
COUNT III
Fourteenth Amendm ent, Amend. XIV & 42 U.S.C. § 1983
Denial of Due Process On The Right to Vote
122. Plaintiff refers to and incorporate by reference each of the prior paragraphs of
this Amended Complaint as though the same were repeated at length herein.
123. The right of qualified citizens to vote in a state election involving federal
42

470

Case 2:20-cv-01771-PP Filed 12/03/20 Page 42 of 51 Document 9

candidates is recognized as a fundamental right under the Fourteenth Amendment of the
United States Constitution. Harper, 383 U.S. at 665. See also Reynolds, 377 U.S. at 554
(The Fourteenth Amend ment protects the “the right of all qualified citizens to vote, in
state as well as in federal elections.”). Indeed, ever since the Slaughter-House Cases, 83
U.S. 36 (1873), the United States Supreme Court has held that the Privileges and
Immunities Clause of the Fourteenth Amend ment protects certain rights of federal
citizenship from state interference, including the right of citizens to vote in federal
elections. See Twining v. New Jersey, 211 U.S. 78, 97 (1908) (citing Ex parte Yarbrou g h,
110 U.S. 651, 663-64 (1884)). See also Oregon v. Mitchell, 400 U.S. 112, 148-49 (1970)
(Douglas, J., concurring) (collecting cases).
124. The fundamental right to vote protected

by the Fourteenth

Amendment is

cherished in our nation because it “is preservative of other basic civil and political rights. ”
Reynolds, 377 U.S. at 562. Voters have a “right to cast a ballot in an election free from
the taint of intimid ation and fraud,” Burson v. Freeman, 504 U.S. 191, 211 (1992), and
“[c]onf idence in the integrity of our electoral processes is essential to the functioning of
our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).
125. “Obviously included within the right to [vote], secured by the Constitution, is the
right of qualified voters within a state to cast their ballots and have them counted ” if they
are validly cast. United States v. Classic, 313 U.S. 299, 315 (1941). “[T]he right to have
the vote counted” means counted “at full value without dilution or discount.” Reynold s,
377 U.S. at 555, n.29 (quoting South v. Peters, 339 U.S. 276, 279 (1950) (Douglas, J.,
dissenting)).

43

471

Case 2:20-cv-01771-PP Filed 12/03/20 Page 43 of 51 Document 9

“Every voter in a federal . . . election, whether he votes for a candidate with little chance of winning
or for one with little chance of losing, has a right under the Constitution to have his vote fair ly
counted, without its being distorted by fraudulently cast votes.” Anderson v. United States, 417

U.S. 211, 227 (1974); see also Baker v. Carr, 369 U.S. 186, 208 (1962). Invalid or
fraudulent votes debase and dilute the weight of each validly cast vote. Reynolds, 377
U.S. at 555.
126. The right to vote includes not just the right to cast a ballot, but also the right to have it
fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or diluted by
a fraudulent or illegal vote, including without limitation when a single person votes multiple times.
The Supreme Court of the United States has made this clear in case after case. See, e.g., Gray v.
Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the diluting effect of illegal
ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196 (2008) (plurality op. of
Stevens, J.) (“There is no question about the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377 U.S. 533, 554-55 &
n.29 (1964).
127. The right to an honest count is a right possessed by each voting elector, and to
the extent that the importance of his vote is nullified, wholly or in part, he has been injur ed
in the free exercise of a right or privilege secured to him by the laws and Constitution of
the United States. Anderson, 417 U.S. at 226 (quoting Prichard v. United States, 181 F.2d
326, 331 (6th Cir.), aff’d due to absence of quorum, 339 U.S. 974 (1950)).
128. Practices that promote the casting of illegal or unreliable ballots or fail to contain
basic minimum guarantees against such conduct, can violate the Fourteenth Amend ment
by leading to the dilution of validly cast ballots. See Reynolds, 377 U.S. at 555 (“the right
44

472

Case 2:20-cv-01771-PP Filed 12/03/20 Page 44 of 51 Document 9

of suffrage can be denied by a debasement or dilution of the weight of a citizen ’s vote just
as effectively as by wholly prohibiting the free exercise of the franchise. ”).
129. Section I details the Defendants violations of the Wisconsin Election Code .
Section II provides estimates of the number of fraudulent, illegal or ineligible votes
counted, and demonstrates that this number is many times larger than Biden’s margin of
victory.
130. Plaintiff seeks declaratory and injunctive relief enjoining Defendants from
certifying the results of the General Election, or in the alternative, conduct a recount or
recanvas in which they allow a reasonable number of challengers to meaningfully observe
the conduct of the Wisconsin Board of State Canvassers and the Wisconsin county Board s
of Canvassers and that these canvassing boards exercise their duty and authority und er
Wisconsin law, which forbids certifying a tally that includes any ballots that were not
legally cast, or that were switched from Trump to Biden through the unlawful use of
Dominion Democracy Suite software and devices.
COUNT IV
Wide-Spread Ballot Fraud
131. Plaintiff realleges all preceding paragraphs as if fully set forth herein.
132. The scheme of civil fraud can be shown with the pattern of conduct that includes motive
and opportunity, as exhibited by the high level official at Dominion Voting Systems, Eric Coomer,
and his visceral and public rage against the current U.S. President.
133. Opportunity appears with the secretive nature of the voting source code, and the feed of
votes that make clear that an algorithm is applied, that reports in decimal points despite the law
requiring one vote for one ballot.
45

473

Case 2:20-cv-01771-PP Filed 12/03/20 Page 45 of 51 Document 9

134. The results of the analysis and the pattern seen in the included graph strongly suggest a
systemic, system-wide algorithm was enacted by an outside agent, causing the results of
Wisconsin’s vote tallies to be inflated by somewhere between 3 and 5.6 percentage points.
Statistical estimating yields that in Wisconsin, the best estimate of the number of impacted votes
is 181,440. Id.
135. The Reports cited above show a total amount of illegal votes identified that amount to
318,012 or over 15 times the margin by which candidate Biden leads President Trump in the state
of Wisconsin.
136. The right to vote includes not just the right to cast a ballot, but also the right to have it
fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or diluted by
a fraudulent or illegal vote, including without limitation when a single person votes multiple times.
The Supreme Court of the United States has made this clear in case after case. See, e.g., Gray v.
Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the diluting effect of illegal
ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196 (2008) (plurality op. of
Stevens, J.) (“There is no question about the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377 U.S. 533, 554-55 &
n.29 (1964).
137. Plaintiff has no adequate remedy at law. Plaintiff contests the results of Wisconsin’s 2020
General Election because it is fundamentally corrupted by fraud. Defendants intentionally violated
multiple provisions of the Wisconsin Election Code to elect Biden and other Democratic
candidates and defeat President Trump and other Republican candidates.

46

474

Case 2:20-cv-01771-PP Filed 12/03/20 Page 46 of 51 Document 9

PRAYER FOR RELIEF
138. Accordingly, Plaintiff seeks temporary restraining order instructing Defendants to decertify the results of the General Election for the Office of President.
139. Alternatively, Plaintiff seeks an order instructing the Defendants to certify the results of
the General Election for Office of the President in favor of President Donald Trump.
140. In the alternative, Plaintiff seeks a temporary restraining order prohibiting Defendants
from including in any certified results from the General Election the tabulation of absentee and
mailing ballots which do not comply with the Wisconsin Election Code, including, without
limitation, the tabulation of absentee and mail-in ballots Trump Campaign’s watchers were
prevented from observing or based on the tabulation of invalidly cast absentee and mail-in ballots
which (i) lack a secrecy envelope, or contain on that envelope any text, mark, or symbol which
reveals the elector’s identity, political affiliation, or candidate preference, (ii) do not include on
the outside envelope a completed declaration that is dated and signed by the elector, (iii) are
delivered in-person by third parties for non-disabled voters, or (iv) any of the other Wisconsin
Election Code violations set forth in Section II of this Amended Complaint.
141. Order production of all registration data, ballot applications, ballots, envelopes, etc.
required to be maintained by law. When we consider the harm of these uncounted votes, and
ballots not ordered by the voters themselves, and the potential that many of these unordered ballots
may in fact have been improperly voted and also prevented proper voting at the polls, the mail
ballot system has clearly failed in the state of Wisconsin and did so on a large scale and widespread
basis. The size of the voting failures, whether accidental or intentional, are multiples larger than
the margin in the state. For these reasons, Wisconsin cannot reasonably rely on the results of the
47

475

Case 2:20-cv-01771-PP Filed 12/03/20 Page 47 of 51 Document 9

mail vote. Relief sought is the elimination of the mail ballots from counting in the 2020 election.
Alternatively, the electors for the State of Wisconsin should be disqualified from counting toward
the 2020 election. Alternatively, the electors of the State of Wisconsin should be directed to vote
for President Donald Trump.
142. For these reasons, Plaintiff asks this Court to enter a judgment in his favor and provide
the following emergency relief:
1.

An order directing Governor Evers and the Wisconsin Elections Commission
to de-certify the election results;

2.

An order enjoining Governor Evers from transmitting the currently certified
election results the Electoral College;

3.

An order requiring Governor Evers to transmit certified election results that
state that President Donald Trump is the winner of the election;

4.

An immediate temporary restraining order to seize and impound all servers,
software, voting machines, tabulators, printers, portable media, logs, ballot
applications, ballot return envelopes, ballot images, paper ballots, and all
“election materials” referenced in Wisconsin Statutes § 9.01(1)(b)11. related
to the November 3, 2020 Wisconsin election for forensic audit and inspection
by the Plaintiff;

5.

An order that no votes received or tabulated by machines that were not certified
as required by federal and state law be counted;

48

476

Case 2:20-cv-01771-PP Filed 12/03/20 Page 48 of 51 Document 9

6.

A declaratory judgment declaring that Wisconsin’s failed system of signature
verification violates the Electors and Elections Clause by working a de facto
abolition of the signature verification requirement;

7.

A declaratory judgment declaring that currently certified election results
violate the Due Process Clause, U.S. CONST. Amend. XIV;

8.

A declaratory judgment declaring that mail-in and absentee ballot fraud must
be remedied with a Full Manual Recount or statistically valid sampling that
properly verifies the signatures on absentee ballot envelopes and that
invalidates the certified results if the recount or sampling analysis shows a
sufficient number of ineligible absentee ballots were counted;

9.

A declaratory judgment declaring absentee ballot fraud occurred in violation
of Constitutional rights, Election laws and under state law;

10. A permanent injunction prohibiting the Governor and Secretary of State from
transmitting the currently certified results to the Electoral College based on the
overwhelming evidence of election tampering;
11. Immediate production of 48 hours of security camera recordings of all voting
central count facilities and processes in Milwaukee and Dane Counties for
November 3, 2020 and November 4, 2020.
12. Plaintiff further requests the Court grant such other relief as is just and proper,
including but not limited to, the costs of this action and his reasonable attorney
fees and expenses pursuant to 42 U.S.C. 1988.
49

477

Case 2:20-cv-01771-PP Filed 12/03/20 Page 49 of 51 Document 9

Respectfully submitted, this 3rd day of December, 2020.
LEAD COUNSEL FOR PLAINTIFF
/s Sidney Powell**
Sidney Powell PC
Texas Bar No. 16209700
(517) 763-7499
sidney@federalappeals.com
Of Counsel:
Julia Z. Haller (D.C. Bar No. 466921) **
Brandon Johnson (D.C. 491730) **
Emily P. Newman (Virginia Bar No. 84265) **
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
L. Lin Wood **
GA Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
Telephone: (404) 891-1402
** Applications for admission forthcoming

50

478

Case 2:20-cv-01771-PP Filed 12/03/20 Page 50 of 51 Document 9

Local Counsel for Plaintiff
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com

Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

51

479

Case 2:20-cv-01771-PP Filed 12/03/20 Page 51 of 51 Document 9

DECLARATION OF
I,

, hereby state the following:
1.

2.

I am an adult of sound mine. All statements in this declaration are based
on my personal knowledge and are true and correct.

3.

I am making this statement voluntarily and on my own initiative. I have
not been promised, nor do I expect to receive, anything in exchange for my
testimony and giving this statement. I have no expectation of any profit
or reward and understand that there are those who may seek to harm me
for what I say in this statement. I have not participated in any political
process in the United States, have not supported any candidate for office
in the United States, am not legally permitted to vote in the United
States, and have never attempted to vote in the United States.

4.

I want to alert the public and let the world know the truth about the
corruption, manipulation, and lies being committed by a conspiracy of
people and companies intent upon betraying the honest people of the
United States and their legally constituted institutions and fundamental
rights as citizens. This conspiracy began more than a decade ago in
Venezuela and has spread to countries all over the world. It is a conspiracy
to wrongfully gain and keep power and wealth. It involves political
leaders, powerful companies, and other persons whose purpose is to gain
and keep power by changing the free will of the people and subverting the
proper course of governing.

5.
Over the course of my career, I
specialized in the marines

6.

Due to my training in special operations and my extensive military and
academic formations, I was selected for the national security guard detail
of the President of Venezuela.

- Page 1 of 8

480

1 Page 1 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

481

1 Page 2 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

sophisticated electronic voting system that permitted the leaders of the
Venezuelan government to manipulate the tabulation of votes for national
and local elections and select the winner of those elections in order to gain
and maintain their power.
10. Importantly, I was a direct witness to the creation and operation of an
electronic voting system in a conspiracy between a company known as
Smartmatic and the leaders of conspiracy with the Venezuelan
government. This conspiracy specifically involved President Hugo Chavez
Frias, the person in charge of the National Electoral Council named Jorge
Rodriguez, and principals, representatives, and personnel from
Smartmatic which included
. The
purpose of this conspiracy was to create and operate a voting system that
could change the votes in elections from votes against persons running
the Venezuelan government to votes in their favor in order to maintain
control of the government.
11. In mid-February of 2009, there was a national referendum to change the
Constitution of Venezuela to end term limits for elected officials, including
the President of Venezuela. The referendum passed. This permitted Hugo
Chavez to be re-elected an unlimited number of times.
12. After passage of the referendum, President Chavez instructed me to make
arrangements for him to meet with Jorge Rodriguez, then President of the
National Electoral Council, and three executives from Smartmatic.
Among the three Smartmatic representatives were
President Chavez had multiple meetings with Rodriguez
and the Smartmatic team at which I was present. In the first of four
meetings, Jorge Rodriguez promoted the idea to create software that
would manipulate elections. Chavez was very excited and made it clear
that he would provide whatever Smartmatic needed. He wanted them
immediately to create a voting system which would ensure that any time
anything was going to be voted on the voting system would guarantee
results that Chavez wanted. Chavez offered Smartmatic many
inducements, including large sums of money, for Smartmatic to create or
modify the voting system so that it would guarantee Chavez would win
every election cycle. Smartmatic’s team agreed to create such a system
and did so.
13. I arranged and attended three more meetings between President Chavez
and the representatives from Smartmatic at which details of the new
- Page 3 of 8

482

1 Page 3 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

voting system were discussed and agreed upon. For each of these
meetings, I communicated directly with
on details of
where and when to meet, where the participants would be picked up and
delivered to the meetings, and what was to be accomplished. At these
meetings, the participants called their project the “Chavez revolution.”
From that point on, Chavez never lost any election. In fact, he was able
to ensure wins for himself, his party, Congress persons and mayors from
townships.
14. Smartmatic’s electoral technology was called “Sistema de Gestión
Electoral” (the “Electoral Management System”). Smartmatic was a
pioneer in this area of computing systems. Their system provided for
transmission of voting data over the internet to a computerized central
tabulating center. The voting machines themselves had a digital display,
fingerprint recognition feature to identify the voter, and printed out the
voter’s ballot. The voter’s thumbprint was linked to a computerized record
of that voter’s identity. Smartmatic created and operated the entire
system.
15. Chavez was most insistent that Smartmatic design the system in a way
that the system could change the vote of each voter without being
detected. He wanted the software itself to function in such a manner that
if the voter were to place their thumb print or fingerprint on a scanner,
then the thumbprint would be tied to a record of the voter’s name and
identity as having voted, but that voter would not tracked to the changed
vote. He made it clear that the system would have to be setup to not leave
any evidence of the changed vote for a specific voter and that there would
be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic
agreed to create such a system and produced the software and hardware
that accomplished that result for President Chavez.
16. After the Smartmatic Electoral Management System was put in place, I
closely observed several elections where the results were manipulated
using Smartmatic software. One such election was in December 2006
when Chavez was running against Rosales. Chavez won with a landslide
over Manuel Rosales - a margin of nearly 6 million votes for Chavez versus
3.7 million for Rosales.
17. On April 14, 2013, I witnessed another Venezuelan national election in
which the Smartmatic Electoral Management System was used to
manipulate and change the results for the person to succeed Hugo Chávez
- Page 4 of 8

483

1 Page 4 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

as President. In that election, Nicolás Maduro ran against Capriles
Radonsky.
Inside that location was a control room in which there were
multiple digital display screens – TV screens – for results of voting in each
state in Venezuela. The actual voting results were fed into that room and
onto the displays over an internet feed, which was connected to a
sophisticated computer system created by Smartmatic. People in that
room were able to see in “real time” whether the vote that came through
the electronic voting system was in their favor or against them. If one
looked at any particular screen, they could determine that the vote from
any specific area or as a national total was going against either candidate.
Persons controlling the vote tabulation computer had the ability to change
the reporting of votes by moving votes from one candidate to another by
using the Smartmatic software.
18. By two o'clock in the afternoon on that election day Capriles Radonsky
was ahead of Nicolás Maduro by two million votes. When Maduro and his
supporters realized the size of Radonsky’s lead they were worried that
they were in a crisis mode and would lose the election. The Smartmatic
machines used for voting in each state were connected to the internet and
reported their information over the internet to the Caracas control center
in real-time. So, the decision was made to reset the entire system.
Maduro’s and his supporters ordered the network controllers to take the
internet itself offline in practically all parts in Venezuela and to change
the results.
19. It took the voting system operators approximately two hours to make the
adjustments in the vote from Radonsky to Maduro. Then, when they
turned the internet back on and the on-line reporting was up and running
again, they checked each screen state by state to be certain where they
could see that each vote was changed in favor of Nicholas Maduro. At that
moment the Smartmatic system changed votes that were for Capriles
Radonsky to Maduro. By the time the system operators finish, they had
achieved a convincing, but narrow victory of 200,000 votes for Maduro.
20. After Smartmatic created the voting system President Chavez wanted, he
exported the software and system all over Latin America. It was sent to
Bolivia, Nicaragua, Argentina, Ecuador, and Chile – countries that were
in alliance with President Chavez. This was a group of leaders who
wanted to be able to guarantee they maintained power in their countries.
When Chavez died, Smartmatic was in a position of being the only
- Page 5 of 8

484

1 Page 5 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

company that could guarantee results in Venezuelan elections for the
party in power.
21. I want to point out that the software and fundamental design of the
electronic electoral system and software of Dominion and other election
tabulating companies relies upon software that is a descendant of the
Smartmatic Electoral Management System. In short, the Smartmatic
software is in the DNA of every vote tabulating company’s software and
system.
22. Dominion is one of three major companies that tabulates votes in the
United States. Dominion uses the same methods and fundamentally same
software design for the storage, transfer and computation of voter
identification data and voting data. Dominion and Smartmatic did
business together. The software, hardware and system have the same
fundamental flaws which allow multiple opportunities to corrupt the data
and mask the process in a way that the average person cannot detect any
fraud or manipulation. The fact that the voting machine displays a voting
result that the voter intends and then prints out a paper ballot which
reflects that change does not matter. It is the software that counts the
digitized vote and reports the results. The software itself is the one that
changes the information electronically to the result that the operator of
the software and vote counting system intends to produce that counts.
That’s how it is done. So the software, the software itself configures the
vote and voting result -- changing the selection made by the voter. The
software decides the result regardless of what the voter votes.
23. All of the computer controlled voting tabulation is done in a closed
environment so that the voter and any observer cannot detect what is
taking place unless there is a malfunction or other event which causes the
observer to question the process. I saw first-hand that the manipulation
and changing of votes can be done in real-time at the secret counting
center which existed in Caracas, Venezuela. For me it was something
very surprising and disturbing. I was in awe because I had never been
present to actually see it occur and I saw it happen. So, I learned firsthand that it doesn’t matter what the voter decides or what the paper
ballot says. It’s the software operator and the software that decides what
counts – not the voter.
24. If one questions the reliability of my observations, they only have to read
the words of
a time period in
- Page 6 of 8

485

1 Page 6 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

which Smartmatic had possession of all the votes and the voting, the votes
themselves and the voting information at their disposition in Venezuela.
he was assuring that the voting system implemented or used
by Smartmatic was completely secure, that it could not be compromised,
was not able to be altered.
25. But later, in 2017 when there were elections where Maduro was running
and elections for legislators in Venezuela,
and Smartmatic broke
their secrecy pact with the government of Venezuela. He made a public
announcement through the media in which he stated that all the
Smartmatic voting machines used during those elections were totally
manipulated and they were manipulated by the electoral council of
Venezuela back then.
stated that all of the votes for Nicholas
Maduro and the other persons running for the legislature were
manipulated and they actually had lost. So I think that's the greatest
proof that the fraud can be carried out and will be denied by the software
company that
admitted publicly that Smartmatic had created,
used and still uses vote counting software that can be manipulated or
altered.
26. I am alarmed because of what is occurring in plain sight during this 2020
election for President of the United States. The circumstances and events
are eerily reminiscent of what happened with Smartmatic software
electronically changing votes in the 2013 presidential election in
Venezuela. What happened in the United States was that the vote
counting was abruptly stopped in five states using Dominion software. At
the time that vote counting was stopped, Donald Trump was significantly
ahead in the votes. Then during the wee hours of the morning, when there
was no voting occurring and the vote count reporting was off-line,
something significantly changed. When the vote reporting resumed the
very next morning there was a very pronounced change in voting in favor
of the opposing candidate, Joe Biden.
27.

I have worked in gathering
information, researching, and working with information technology.
That's what I know how to do and the special knowledge that I have. Due
to these recent election events, I contacted a number of reliable and
intelligent ex-co-workers of mine that are still informants and work with
the intelligence community. I asked for them to give me information that
was up-to-date information in as far as how all these businesses are
acting, what actions they are taking.
- Page 7 of 8

486

1 Page 7 of 8 Document 9-1
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

An Analysis of Surveys Regarding Absentee Ballots Across Several States
William M. Briggs
November 23, 2020

1

Summary

Survey data was collected from individuals in several states, sampling those who the states listed as not returning absentee
ballots. The data was provided by Matt Braynard.
The survey asked respondents whether they (a) had ever requested an absentee ballot, and, if so, (b) whether they had
in fact returned this ballot. From this sample I produce predictions of the total numbers of: Error #1, those who were
recorded as receiving absentee ballots without requesting them; and Error #2, those who returned absentee ballots but
whose votes went missing (i.e. marked as unreturned).
The sizes of both errors were large in each state. The states were Georgia, Michigan, Wisconsin, and Arizona where
ballots were across parties. Pennsylvania data was for Republicans only.

2

Analysis Description

Each analysis was carried out separately for each state. The analysis used (a) the number of absentee ballots recorded as
unreturned, (b) the total responding to the survey, (c) the total of those saying they did not request a ballot, (d) the total
of those saying they did request a ballot, and of these (e) the number saying they returned their ballots. I assume survery
respondents are representative and the data is accurate.
From these data a simple parameter-free predictive model was used to calculate the probability of all possible outcomes.
Pictures of these probabilities were derived, and the 95% prediction interval of the relevant numbers was calculated. The
pictures appear in the Appendix at the end. They are summarized here with their 95% prediction intervals.
Error #1: being recorded as sent an absentee ballot without requesting one.
Error #2: sending back an absentee ballot and having it recorded as not returned.
State
Unreturned ballots
Error #1
Error #2
Georgia
138,029
16,938–22,771
31,559–38,866
Michigan
139,190
29,611–36,529
27,928–34,710
Pennsylvania∗
165,412
32,414–37,444
26,954–31,643
Wisconsin
96,771
16,316–19,273
13,991–16,757
Arizona
518,560
208,333–229,937 78,714–94,975
∗
Number for Pennsylvania represent Republican ballots only.
Ballots that were not requested, and ballots returned and marked as not returned were classed as troublesome. The
estimated average number of troublesome ballots for each state were then calculated using the table above and are presented
next.
State

Estimated average
troublesome ballots
Georgia
138,029
53,489
Michigan
139,190
62,517
Pennsylvania∗
165,412
61,780
Wisconsin
96,771
29,594
Arizona
518,560
303,305
∗
Number for Pennsylvania represent Republican ballots only.

3

Unreturned ballots

Percent
39%
45%
37%
31%
58%

Conclusion

There are clearly a large number of troublesome ballots in each state investigated. Ballots marked as not returned that were
never requested are clearly an error of some kind. The error is not small as a percent of the total recorded unreturned ballots.

488

2 Page 1 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20
1

Ballots sent back and unrecorded is a separate error. These represent votes that have gone missing, a serious mistake.
The number of these missing ballots is also large in each state.
Survey respondents were not asked if they received an unrequested ballot whether they sent these ballots back. This is
clearly a lively possibility, and represents a third possible source of error, including the potential of voting twice (once by
absentee and once at the polls). No estimates or likelihood can be calculated for this potential error due to absence of data.

4

Declaration of William M. Briggs, PhD

1. My name is William M. Briggs. I am over 18 years of age and am competent to testify in this action. All of the facts
stated herein are true and based on my personal knowledge.
2. I received a Ph.D of Statistics from Cornell University in 2004.
3. I am currently a statistical consultant. I make this declaration in my personal capacity.
4. I have analyzed data regarding responses to questions relating to mail ballot requests, returns and related issues.
5. I attest to a reasonable degree of professional certainty that the resulting analysis are accurate.
I declare under the penalty of perjury that the foregoing is true and correct.

23 November 2020
William M. Briggs

5

Appendix

The probability pictures for each state for each outcome as mentioned above.

Probability of numbers of un−requested absentee ballots listed as
not returned for Georgia
There is a 95 % chance from
between 16938 and 22771
absentee ballots were not
requested but marked as not
returned

Probability

0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Georgia
There is a 95 % chance from
between 31559 and 38866
absentee ballots were
returned but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

489

2 Page 2 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20
2

Probability of numbers of un−requested absentee ballots listed as
not returned for Michigan
There is a 95 % chance from
between 29611 and 36529
absentee ballots were not
requested but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Michigan
There is a 95 % chance from
between 27928 and 34710
absentee ballots were
returned but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of un−requested absentee ballots listed as
not returned for Pennsylvania
0.00030

There is a 95 % chance from
between 32414 and 37444
absentee ballots were not
requested but marked as not
returned

Probability

0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

160,000

Ballots Listed as Not Returned

0.00035

Probability of numbers of absentee ballots returned but listed as
not returned for Pennsylvania
There is a 95 % chance from
between 26954 and 31643
absentee ballots were
returned but marked as not
returned

Probability

0.00030
0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

160,000

Ballots Listed as Not Returned

490

2 Page 3 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20
3

Probability of numbers of un−requested absentee ballots listed as
not returned for Wisconsin
There is a 95 % chance from
between 16316 and 19273
absentee ballots were not
requested but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Wisconsin
There is a 95 % chance from
between 13991 and 16757
absentee ballots were
returned but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability

Probability of numbers of un−requested absentee ballots listed as
not returned for Arizona
0.00007
0.00006
0.00005
0.00004
0.00003
0.00002
0.00001
0.00000

There is a 95 % chance from
between 208333 and 229937
absentee ballots were not
requested but marked as not
returned

0

50,000

100,000

150,000

200,000

250,000

300,000

350,000

400,000

450,000

500,000

Ballots Listed as Not Returned

0.00010

Probability of numbers of absentee ballots returned but listed as
not returned for Arizona
There is a 95 % chance from
between 78714 and 94975
absentee ballots were
returned but marked as not
returned

Probability

0.00008
0.00006
0.00004
0.00002
0.00000
0

50,000

100,000

150,000

200,000

250,000

300,000

350,000

400,000

450,000

500,000

Ballots Listed as Not Returned

491

2 Page 4 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20
4

WI Unreturned Live Agent - Mass Markets
4,614
433
1,053
3,128
50,712
1,944

11/15/2020 11/16/2020 11/17/2020
3,483
1,131

Completes
Completed survey** - Q4=0 1-Completed Survey
VM Message Left
2-Message Delivered VM
Refused/Early Hang up/RC 3-Refused
No Answer
4-No Answer
Bad/Wrong Numbers/Langu5-Bad Number

-

300
804
2,379
40,391
1,289

133
249
749
10,321
655

100.00% List Penetration
57,271 Data Loads
Q1 - May I please speak to <lead on
screen>?
2,261
1,677
0
3,495

Response

A-Reached Target + B-What Is This
64.69% About? / Uncertain
47.98% X = Refused
0.00%
100.00% Sum of All Responses

Q2 - Did you request Absentee Ballot
Response
in state of WI?
1,699

492

62.39% A-Yes [Go to Q3]

11/15/2020 11/16/2020 11/17/2020
-

1,343
1,202

475
475

-

2,545

950

11/15/2020 11/16/2020 11/17/2020
-

1,374

2 Page 5 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

325

379
32
4
44
4
561

2,723

13.92% B-No [Go to Q4]
C-Yes (per Spouse/family Member)
1.18%
[Go to Q3]
D-No (per Spouse/family Member)
0.15%
[Go to Q4]
1.62% E-Unsure [Go to Close A]
F-Not Available At The Moment [Go
0.15%
to Close A]
20.60% X = Refused

100.00% Sum of All Responses

Q3 - Did you mail your ballot back?
Response
316
14.67% A-Yes [Go to Q4]
1,286
59.70% B-No [Go to Close A]
C-Yes (per Spouse/family Member)
9
0.42%
[Go to Q4]
D-No (per Spouse/family Member)
15
0.70%
[Go to Close A]
28
1.30% E-Unsure / Refused [Go to Close A]
500
23.21% X = Refused

2,154

493

100.00% Sum of All Responses

-

240

139

-

16

16

-

25

4
19

-

2
405

2
156

-

2,062

661

11/15/2020 11/16/2020 11/17/2020
238
78
1,069
217
-

4

5

-

8
24
314

7
4
186

-

1,657

497

2 Page 6 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Q4 - Can you please give us the best
phone number to reach you at?
432
108
0
0
540

11/15/2020 11/16/2020 11/17/2020

80.00% A-Yes (Capture Number) [Go to Q5]
20.00% B-Refused [Go to Q5]
0.00%
0.00%
100.00% Sum of All Responses

Q5 - Can you provide us your email
address?
11.55%
50
88.45%
383
0.00%
0
433
100.00%

494

Response

Response
01-Yes [Go to Close B]
02-No [Go to Close B]
Sum of All Responses

-

300
77

132
31

-

377

163

11/15/2020 11/16/2020 11/17/2020
37
13
263
120
-

2 Page 7 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

300

133

495

2 Page 8 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

William M. Briggs, PhD
Statistician to the Stars!
matt@wmbriggs.com
917-392-0691
1. Experience
(1) 2016: Author of Uncertainty: The Soul of Modeling, Probability & Statistics, a book which argues for a complete and fundamental change in the
philosophy and practice of probability and statistics. Eliminate hypothesis
testing and estimation, and move to verifiable predictions. This includes
AI and machine learning. Call this The Great Reset, but a good one.
(2) 2004-2016 Adjunct Professor of Statistical Science, Cornell
University, Ithaca, New York
I taught a yearly Masters course to people who (rightfully) hate statistics.
Interests: philosophy of science & probability, epistemology, epidemiology
(ask me about the all-too-common epidemiologist fallacy), Bayesian statistics, medicine, climatology & meteorology, goodness of forecasts, overconfidence in science; public understanding of science, limitations of science,
scientism; scholastic metaphysics (as it relates to epistemology).
(3) 1998-present. Statistical consultant, Various companies
Most of my time is spent coaxing people out of their money to tell them
they are too sure of themselves. All manner of analyses cheerfully undertaken. Example: Fraud analysis; I created the Wall Street Journal’s
College Rankings. I consultant regularly at Methodist and other hospitals,
start-ups, start-downs, and with any instition willing to fork it over.
(4) 2003-2010. Research Scientist, New York Methodist Hospital,
New York
Besides the usual, I sit/sat on the Institutional Review Committee to assess
the statistics of proposed research. I was an Associate Editor for Monthly
Weather Review (through 2011). Also a member of the American Meteorological Society’s Probability and Statistics Committee (through 2011). At
a hospital? Yes, sir; at a hospital. It rains there, too, you know.
(5) Fall 2007, Fall 2010 Visiting Professor of Statistics, Department of Mathematics, Central Michigan University, Mt. Pleasant, MI
Who doesn’t love a visit from a statistician? Ask me about the difference
between “a degree” and “an education.”
(6) 2003-2007, Assistant Professor Statistics, Weill Medical College of Cornell University, New York, New York
Working here gave me a sincere appreciation of the influences of government
money; grants galore.
(7) 2002-2003. Gotham Risk Management, New York
A start-up then, after Enron’s shenanigans, a start-down. We set future
weather derivative and weather insurance contract prices that incorporated
information from medium- and long-range weather and climate forecasts.
(8) 1998-2002. DoubleClick, New York
Lead statistician. Lot of computer this and thats; enormous datasets.
(9) 1993-1998. Graduate student, Cornell University
1

496

2 Page 9 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

2

Meteorology, applied climatology, and finally statistics. Was Vice Chair of
the graduate student government; probably elected thanks to a miracle.
(10) 1992-1993. National Weather Service, Sault Ste. Marie, MI
Forecast storms o’ the day and launched enormous balloons in the name of
Science. My proudest moment came when I was able to convince an ancient
IBM-AT machine to talk to an analog, 110 baud, phone-coupled modem,
all using BASIC!
(11) 1989-1992. Undergraduate student, Central Michigan University
Meteorology and mathematics. Started the local student meteorology group
to chase tornadoes. Who knew Michigan had so few? Spent a summer at
U Michigan playing with a (science-fiction-sounding) lidar.
(12) 1983-1989. United States Air Force
Cryptography and other secret stuff. Shot things; learned pinochle. I
adopted and became proficient with a fascinating and versatile vocabulary.
Irritate me for examples. TS/SCI, etc. security clearance (now inactive).
2. Education
(1) Ph.D., 2004, Cornell University. Statistics.
(2) M.S., 1995, Cornell University. Atmospheric Science.
(3) B.S., Summa Cum Laude, 1992, Central Michigan University. Meteorology
and Math.
3. Publications
3.0.1. Popular.
(1) Op-eds in various newspapers; articles in Stream, Crisis Magazine, The
Remnant, Quadrant, Quirks; blog with ∼70,000 monthly readers. Various
briefs submitted to government agencies, such as California Air Resources
Board, Illinois Department of Natural Resources. Talks and holding-forths
of all kinds.
3.0.2. Books.
(1) Richards, JW, WM Briggs, and D Axe, 2020. UThe Price of Panic: How
the Tyranny of Experts Turned a Pandemic into a Catastrophe. Regnery.
Professors Jay Richards, William Briggs, and Douglas Axe take a deep dive
into the crucial questions on the minds of millions of Americans during one
of the most jarring and unprecedented global events in a generation.
(2) Briggs, WM., 2016. Uncertainty: The Soul of Modeling, Probability &
Statistics. Springer. Philosophy of probability and statistics. A new (old)
way to view and to use statistics, a way that doesn’t lead to heartbreak
and pandemic over-certainty, like current methods do.
(3) Briggs, WM., 2008 Breaking the Law of Averages: Real Life Probability and
Statistics in Plain English. Lulu Press, New York. Free text for undergraduates.
(4) Briggs, WM., 2006 So You Think You’re Psychic? Lulu Press, New York.
Hint: I’ll bet you’re not.

497

Exhibit 2 Page 10 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

3

3.0.3. Methods.

(1) Briggs, WM and J.C. Hanekamp, 2020. Uncertainty In The MAN Data
Calibration & Trend Estimates. Atmospheric Environment, In review.
(2) Briggs, WM and J.C. Hanekamp, 2020. Adjustments to the Ryden & McNeil Ammonia Flux Model. Soil Use and Management, In review.
(3) Briggs, William M., 2020. Parameter-Centric Analysis Grossly Exaggerates
Certainty. In Data Science for Financial Econometrics, V Kreinovich, NN
Thach, ND Trung, DV Thanh (eds.), In press.
(4) Briggs, WM, HT Nguyen, D Trafimow, 2019. Don’t Test, Decide. In
Behavioral Predictive Modeling in Econometrics, Springer, V Kreinovich, S
Sriboonchitta (eds.). In press.
(5) Briggs, William M. and HT Nguyen, 2019. Clarifying ASA’s view on pvalues in hypothesis testing. Asian Journal of Business and Economics,
03(02), 1–16.
(6) Briggs, William M., 2019. Reality-Based Probability & Statistics: Solving The Evidential Crisis (invited paper). Asian Journal of Business and
Economics, 03(01), 37–80.
(7) Briggs, William M., 2019. Everything Wrong with P-Values Under One
Roof. In Beyond Traditional Probabilistic Methods in Economics, V Kreinovich,
NN Thach, ND Trung, DV Thanh (eds.), pp 22—44.
(8) Briggs, WM, HT Nguyen, D Trafimow, 2019. The Replacement for Hypothesis Testing. In Structural Changes and Their Econometric Modeling,
Springer, V Kreinovich, S Sriboonchitta (eds.), pp 3—17.
(9) Trafimow, D, V Amrhein, CN Areshenkoff, C Barrera-Causil, ..., WM
Briggs, (45 others), 2018. Manipulating the alpha level cannot cure significance testing. Frontiers in Psychology, 9, 699. doi.org/10.3389/ fpsyg.2018.00699.
(10) Briggs, WM, 2018. Testing, Prediction, and Cause in Econometric Models.
In Econometrics for Financial Applications, ed. Anh, Dong, Kreinovich,
and Thach. Springer, New York, pp 3–19.
(11) Briggs, WM, 2017. The Substitute for p-Values. JASA, 112, 897–898.
(12) J.C. Hanekamp, M. Crok, M. Briggs, 2017. Ammoniak in Nederland.
Enkele kritische wetenschappelijke kanttekeningen. V-focus, Wageningen.
(13) Briggs, WM, 2017. Math: Old, New, and Equalitarian. Academic Questions, 30(4), 508–513.
(14) Monckton, C, W Soon, D Legates, ... (several others), WM Briggs 2018. On
an error in applying feedback theory to climate. In submission (currently
J. Climate).
(15) Briggs, WM, JC Hanekamp, M Crok, 2017. Comment on Goedhart and
Huijsmans. Soil Use and Management, 33(4), 603–604.
(16) Briggs, WM, JC Hanekamp, M Crok, 2017. Response to van Pul, van
Zanten and Wichink Kruit. Soil Use and Management, 33(4), 609–610.
(17) Jaap C. Hanekamp, William M. Briggs, and Marcel Crock, 2016. A volatile
discourse - reviewing aspects of ammonia emissions, models, and atmospheric concentrations in The Netherlands. Soil Use and Management,
33(2), 276–287.

498

Exhibit 2 Page 11 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

4

(18) Christopher Monckton of Brenchley, Willie Soon, David Legates, William
Briggs, 2015. Keeping it simple: the value of an irreducibly simple climate
model. Science Bulletin. August 2015, Volume 60, Issue 15, pp 1378–1390.
(19) Briggs, WM, 2015. The Third Way Of Probability & Statistics: Beyond
Testing and Estimation To Importance, Relevance, and Skill. arxiv.org/
abs/1508.02384.
(20) Briggs, WM, 2015. The Crisis Of Evidence: Why Probability And Statistics
Cannot Discover Cause. arxiv.org/abs/1507.07244.
(21) David R. Legates, Willie Soon, William M. Briggs, Christopher Monckton
of Brenchley, 2015. Climate Consensus and ‘Misinformation’: A Rejoinder
to Agnotology, Scientific Consensus, and the Teachingand Learning of Climate Change. Science and Education, 24, 299–318, DOI 10.1007/s11191013-9647-9.
(22) Briggs, WM, 2014. The Problem Of Grue Isn’t. arxiv.org/abs/1501.03811.
(23) Christopher Monckton of Brenchley, Willie Soon, David Legates, William
Briggs, 2014. Why models run hot: results from an irreducibly simple
climate model. Science Bulletin. January 2015, Volume 60, Issue 1, pp
122-135.
(24) Briggs, WM, 2014. Common Statistical Fallacies. Journal of American
Physicians and Surgeons, Volume 19 Number 2, 58–60.
(25) Aalt Bast, William M. Briggs, Edward J. Calabrese, Michael F. Fenech,
Jaap C. Hanekamp, Robert Heaney, Ger Rijkers, Bert Schwitters, Pieternel
Verhoeven, 2013. Scientism, Legalism and Precaution—Contending with
Regulating Nutrition and Health Claims in Europe. European Food and
Feed Law Review, 6, 401–409.
(26) Legates, DR, Soon, W, and Briggs, 2013. Learning and Teaching Climate
Science: The Perils of Consensus Knowledge Using Agnotology. Science
and Education, DOI 10.1007/s11191-013-9588-3.
(27) Briggs, WM, 2012. On Probability Leakage. arxiv.org/abs/1201.3611.
(28) Briggs, WM, 2012. Why do statisticians answer questions no one ever asks?
Significance. Volume 9 Issue 1 Doi: 10.1111/j.1740-9713.2012.00542.x. 30–
31.
(29) Briggs, WM, Soon, W, Legates, D, Carter, R, 2011. A Vaccine Against
Arrogance. Water, Air, & Soil Pollution: Volume 220, Issue 1 (2011),
Page 5-6
(30) Briggs, WM, and R Zaretzki, 2009. Induction and falsifiability in statistics.
arxiv.org/abs/math/0610859.
(31) Briggs, WM, 2011. Discussion to A Gelman. Why Tables are Really Much
Better than Graphs. Journal Computational and Graphical Statistics. Volume 20, 16–17.
(32) Zaretzki R, Gilchrist MA, Briggs WM, and Armagan A, 2010. Bias correction and Bayesian analysis of aggregate counts in SAGE libraries. BMC
Bioinformatics, 11:72doi:10.1186/1471-2105-11-72.
(33) Zaretzki, R, Briggs, W, Shankar, M, Sterling, M, 2009. Fitting distributions of large scale power outages: extreme values and the effect of
truncation. International Journal of Power and Energy Systems. DOI:
10.2316/Journal.203.2009.1.203-4374.

499

Exhibit 2 Page 12 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

5

(34) Briggs, WM, 2007. Changes in number and intensity of world-wide tropical
cyclones arxiv.org/physics/0702131.
(35) Briggs, WM, 2007. On the non-arbitrary assignment of equi-probable priors
arxiv.org/math.ST/0701331.
(36) Briggs, WM, 2007. On the changes in number and intensity of North
Atlantic tropical cyclones Journal of Climate. 21, 1387-1482.
(37) Briggs, WM, Positive evidence for non-arbitrary assignments of probability,
2007. Edited by Knuth et al. Proceedings 27th International Workshop on
Bayesian Inference and Maximum Entropy Methods in Science and Engineering. American Institute of Physics. 101-108.
(38) Briggs, WM, R Zaretzki, 2007. The Skill Plot: a graphical technique for
the evaluating the predictive usefulness of continuous diagnostic tests. With
Discussion. Biometrics. 64(1), 250-6; discussion 256-61. PMID: 18304288.
(39) Zaretzki R, Gilchrist MA, Briggs WM, 2010. MCMC Inference for a Model
with Sampling Bias: An Illustration using SAGE data. arxiv.org/abs/0711.3765
(40) Briggs, WM, and D Ruppert, 2006. Assessing the skill of yes/no forecasts
for Markov observations. Monthly Weather Review. 134, 2601-2611.
(41) Briggs, WM, 2007. Review of Statistical Methods in the Atmospheric Sciences (second edition, 2006) by Wilks, D.S. Journal of the American Statistical Association, 102, 380.
(42) Briggs, WM, M Pocernich, and D Ruppert, 2005. Incorporating misclassification error in skill assessment. Monthly Weather Review, 133(11), 33823392.
(43) Briggs, WM, 2005. A general method of incorporating forecast cost and
loss in value scores. Monthly Weather Review, 133(11), 3393-3397.
(44) Briggs, WM, and D Ruppert, 2005. Assessing the skill of Yes/No Predictions. Biometrics. 61(3), 799-807. PMID: 16135031.
(45) Briggs, WM, 2004. Discussion to T Gneiting, LI Stanberry, EP Grimit, L
Held, NA Johnson, 2008. Assessing probabilistic forecasts of multivariate
quantities, with an application to ensemble predictions of surface winds.
Test. 17, 240-242.
(46) Briggs, WM, 2004. Discussion to Gel, Y, AE Raftery, T Gneiting, and V.J.
Berrocal, 2004. Calibrated Probabilistic Mesoscale Weather Field Forecasting: The Geostatistical Output Perturbation (GOP) Method. J. American
Statistical Association. 99 (467): 586-587.
(47) Mozer, JB, and Briggs, WM, 2003. Skill in real-time solar wind shock
forecasts. J. Geophysical Research: Space Physics, 108 (A6), SSH 9 p.
1-9, (DOI 10.1029/2003JA009827).
(48) Briggs, WM, 1999. Review of Forecasting: Methods and Applications (third
edition, 1998) by Makridakis, Wheelwright, and Hyndman; and Elements
of Forecasting (first edition, 1998) by Diebold. Journal of the American
Statistical Association, 94, 345-346.
(49) Briggs, W.M., and R.A. Levine, 1997. Wavelets and Field Forecast Verification. Monthly Weather Review, 25 (6), 1329-1341.
(50) Briggs, WM, and DS Wilks, 1996. Estimating monthly and seasonal distributions of temperature and precipitation using the new CPC long-range
forecasts. Journal of Climate, 9, 818-826.

500

Exhibit 2 Page 13 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

6

(51) Briggs, WM, and DS Wilks, 1996. Extension of the CPC long-lead temperature and precipitation outlooks to general weather statistics. Journal
of Climate, 9, 3496-3504.

501

Exhibit 2 Page 14 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

7

3.0.4. Applications.

(1) Jamorabo, Daniel, Renelus, Benjamin, Briggs, WM, 2019. ”Comparative
outcomes of EUS-guided cystogastrostomy for peripancreatic fluid collections (PFCs): A systematic review and meta-analysis, 2019. Therapeutic
Advances in Gastrointestinal Endoscopy, in press.
(2) Benjamin Renelus, S Paul, S Peterson, N Dave, D amorabo, W Briggs,
P Kancharla, 2019. Racial disparities with esophageal cancer mortality
at a high-volume university affiliated center: An All ACCESS Invitation,
Journal of the National Medical Association, in press.
(3) Mehta, Bella, S Ibrahim, WM Briggs, and P Efthimiou, 2019. Racial/Ethnic
variations in morbidity and mortality in Adult Onset Still’s Disease: An
analysis of national dataset”, Seminars in Arthritis and Rheumatism, doi:
10.1016/j.semarthrit.2019.04.0044.
(4) Ivanov A, Dabiesingh DS, Bhumireddy GP, Mohamed A, Asfour A, Briggs
WM, Ho J, Khan SA, Grossman A, Klem I, Sacchi TJ, Heitner JF. Prevalence and Prognostic Significance of Left Ventricular Noncompaction in
Patients Referred for Cardiac Magnetic Resonance Imaging. Circ Cardiovasc Imaging. 2017 Sep;10(9). pii: e006174. doi: 10.1161/CIRCIMAGING.117.006174.
(5) Ivanov A, Kaczkowska BA, Khan SA, Ho J, Tavakol M, Prasad A, Bhumireddy G, Beall AF, Klem I, Mehta P, Briggs WM, fpaSacchi TJ, Heitner JF, 2017. Review and Analysis of Publication Trends over Three
Decades in Three High Impact Medicine Journals. PLoS One. 2017 Jan
20;12(1):e0170056. doi: 10.1371/journal.pone.0170056.
(6) A. Ivanova, G.P. Bhumireddy, D.S. Dabiesingh, S.A. Khana, J. Hoa N.
Krishna, N. Dontineni, J.A Socolow, W.M. Briggs, I. Klem, T.J. Sacchi,
J.F. Heitner, 2016. Importance of papillary muscle infarction detected by
cardiac magnetic resonance imaging in predicting cardiovascular events.
International Journal of Cardiology. Volume 220, 1 October 2016, Pages
558–563. PMID: 27390987.
(7) A Ivanov, J Yossef, J Taillon, B Worku, I Gulkarov, A Tortolani, TJ
Sacchi, WM Briggs, SJ Brener, JA Weingarten, JF Heitner, 2015. Do
pulmonary function tests improve risk stratification before cardiothoracic
surgery? Journal of Thoracic and Cardiovascular Surgery. 2015 Oct 30.
pii: S0022-5223(15)02165-0. doi: 10.101. PMID: 26704058.
(8) Chen O, Sharma A, Ahmad I, Bourji N, Nestoiter K, Hua P, Hua B, Ivanov
A, Yossef J, Klem I, Briggs WM, Sacchi TJ, Heitner JF, 2015. Correlation
between pericardial, mediastinal, and intrathoracic fat volumes with the
presence and severity of coronary artery disease, metabolic syndrome, and
cardiac risk factors. Eur Heart J Cardiovasc Imaging. 2015 Jan;16(1):3746. doi: 10.1093/ehjci/jeu145.
(9) Chery J, Semaan E, Darji S, Briggs W, Yarmush J, D’Ayala M, 2014.
Impact of regional versus general anesthesia on the clinical outcomes of
patients undergoing major lower extremity amputation. Ann Vasc Surg,
2014 Jul;28(5):1149-56. PMID: 24342828.
(10) Visconti A, Gaeta T, Cabezon M, Briggs W, Pyle M., 2013. Focused Board
Intervention (FBI): A Remediation Program for Written Board Preparation

502

Exhibit 2 Page 15 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

8

(11)

(12)

(13)

(14)

(15)

(16)

(17)

(18)

(19)

(20)

(21)

503

and the Medical Knowledge Core Competency. J Grad Med Educ. 2013
Sep;5(3):464-7. PMID: 24404311.
Annika Krystyna, D Kumari, R Tenney, R Kosanovic, T Safi, WM Briggs,
K Hennessey, M Skelly, E Enriquez, J Lajeune, W Ghani and MD Schwalb,
2013. Hepatitis c antibody testing in African American and Hispanic men
in New York City with prostate biopsy. Oncology Discovery, Vol 1. DOI:
10.7243/2052-6199-1-1.
Ziad Y. Fayad, Elie Semaan, Bashar Fahoum, W. Matt Briggs, Anthony
Tortolani, and Marcus D’Ayala, 2013. Aortic mural thrombus in the normal or minimally atherosclerotic aorta: A systematic review and metaanalysis of the available literature. Ann Vasc Surg., Apr;27(3):282-90.
DOI:10.1016/j.avsg.2012.03.011.
Elizabeth Haines, Gerardo Chiricolo, Kresimir Aralica, William Briggs,
Robert Van Amerongen, Andrew Laudenbach, Kevin O’Rourke, and Lawrence
Melniker MD, 2012. Derivation of a Pediatric Growth Curve for Inferior
Vena Caval Diameter in Healthy Pediatric Patients. Crit Ultrasound J.
2012 May 28;4(1):12. doi: 10.1186/2036-7902-4-12.
Wei Li, Piotr Gorecki, Elie Semaan, William Briggs, Anthony J. Tortolani,
Marcus D’Ayala, 2011. Concurrent Prophylactic Placement of Inferior Vena
Cava Filter in gastric bypass and adjustable banding operations: An analysis of the Bariatric Outcomes Longitudinal Database (BOLD). J. Vascular
Surg. 2012 Jun;55(6):1690-5. doi: 10.1016/j.jvs.2011.12.056.
Krystyna A, Kosanovic R, Tenney R, Safi T, Briggs WM, et al. (2011)
Colonoscopy Findings in Men with Transrectal Ultrasound Guided Prostate
Biopsy: Association of Colonic Lipoma with Prostate Cancer. J Cancer Sci
Ther S4:002. doi:10.4172/1948-5956.S4-002
Birkhahn RH, Wen W, Datillo PA, Briggs WM, Parekh A, Arkun A, Byrd
B, Gaeta TJ, 2012. Improving patient flow in acute coronary syndromes
in the face of hospital crowding. J Emerg Med. 2012 Aug;43(2):356-65.
PMID: 22015378.
Birkhahn RH, Haines E, Wen W, Reddy L, Briggs WM, Datillo PA., 2011.
Estimating the clinical impact of bringing a multimarker cardiac panel to
the bedside in the ED. Am J Emerg Med. 2011 Mar;29(3):304-8.
Krystyna A, Safi T, Briggs WM, Schwalb MD., 2011. Correlation of hepatitis C and prostate cancer, inverse correlation of basal cell hyperplasia
or prostatitis and epidemic syphilis of unknown duration. Int Braz J Urol.
2011 Mar-Apr;37(2):223-9; discussion 230.
Muniyappa R, Briggs WM, 2010. Limited Predictive Ability of Surrogate
Indices of Insulin Sensitivity/Resistance in Asian Indian Men: A Calibration Model Analysis. AJP - Endocrinology and Metabolism. 299(6):E110612. PMID: 20943755.
Birkhahn RH, Blomkalns A, Klausner H, Nowak R, Raja AS, Summers
R, Weber JE, Briggs WM, Arkun A, Diercks D. The association between
money and opinion in academic emergency medicine. West J Emerg Med.
2010 May;11(2):126-32. PMID: 20823958.
Loizzo JJ, Peterson JC, Charlson ME, Wolf EJ, Altemus M, Briggs WM,
Vahdat LT, Caputo TA, 2010. The effect of a contemplative self-healing

Exhibit 2 Page 16 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

9

(22)

(23)

(24)

(25)

(26)

(27)

(28)

(29)

(30)

(31)

(32)

(33)

504

program on quality of life in women with breast and gynecologic cancers.
Altern Ther Health Med., May-Jun;16(3):30-7. PMID: 20486622.
Krystyna A, Safi T, Briggs WM, Schwalb MD, 2010. Higher morbidity
in prostate cancer patients after transrectal ultrasound guided prostate
biopsy with 3-day oral ciprofloxacin prophylaxis, independent of number
of cores. Brazilian Journal of Urology. Mar-Apr;37(2):223-9; discussion
230. PMID:21557839.
Arkun A, Briggs WM, Patel S, Datillo PA, Bove J, Birkhahn RH, 2010.
Emergency department crowding: factors influencing flow West J Emerg
Med. Feb;11(1):10-5.PMID: 20411067.
Li W, D’Ayala M, Hirshberg A, Briggs W, Wise L, Tortolani A, 2010. Comparison of conservative and operative treatment for blunt carotid injuries:
analysis of the National Trauma Data Bank. J Vasc Surg.. Mar;51(3):5939, 599.e1-2.PMID: 20206804.
D’Ayala M, Huzar T, Briggs W, Fahoum B, Wong S, Wise L, Tortolani
A, 2010. Blood transfusion and its effect on the clinical outcomes of patients undergoing major lower extremity amputation. Ann Vasc Surg.,
May;24(4):468-73. Epub 2009 Nov 8.PMID: 19900785.
Tavakol M, Hassan KZ, Abdula RK, Briggs W, Oribabor CE, Tortolani AJ,
Sacchi TJ, Lee LY, Heitner JF., 2009. Utility of brain natriuretic peptide
as a predictor of atrial fibrillation after cardiac operations. Ann Thorac
Surg. Sep;88(3):802-7.PMID: 19699901.
Zandieh SO, Gershel JC, Briggs WM, Mancuso CA, Kuder JM., 2009. Revisiting predictors of parental health care-seeking behaviors for nonurgent
conditions at one inner-city hospital. Pediatr Emerg Care., Apr;25(4):238243.PMID: 19382324.
Birkhahn RH, Blomkalns AL, Klausner HA, Nowak RM, Raja AS, Summers RL, Weber JE, Briggs WM, Arkun A, Diercks D., 2008. Academic
emergency medicine faculty and industry relationships. Acad Emerg Med.,
Sep;15(9):819-24.PMID: 19244632.
Westermann H, Choi TN, Briggs WM, Charlson ME, Mancuso CA. Obesity
and exercise habits of asthmatic patients. Ann Allergy Asthma Immunol.
2008 Nov;101(5):488-94. doi: 10.1016/S1081-1206(10)60287-6.
Boutin-Foster C., Ogedegbe G., Peterson J., Briggs M., Allegrante J.,
Charlson ME., 2008. Psychosocial mediators of the relationship between
race/ethnicity and depressive symptoms in Latino and white patients with
coronary artery disease. J. National Medical Association. 100(7), 849-55.
PMID: 18672563
Charlson ME, Charlson RE, Marinopoulos S, McCulloch C, Briggs WM,
Hollenberg J, 2008. The Charlson comorbidity index is adapted to predict costs of chronic disease in primary care patients. J Clin Epidemiol,
Dec;61(12):1234-40. PMID: 18619805.
Mancuso CA, Westermann H, Choi TN, Wenderoth S, Briggs WM, Charlson ME, 2008. Psychological and somatic symptoms in screening for depression in asthma patients. J. Asthma. 45(3), 221-5. PMID: 18415830.
Ullery, BW, JC Peterson, FM, WM Briggs, LN Girardi, W Ko, AJ Tortolani, OW Isom, K Krieger, 2007. Cardiac Surgery in Nonagenarians:

Exhibit 2 Page 17 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

10

(34)

(35)

(36)

(37)

(38)

(39)

(40)

(41)

(42)

(43)

(44)

(45)

505

Should We or Shouldn’t We? Annals of Thoracic Surgery. 85(3), 854-60.
PMID: 18291156.
Mancuso, CA, T Choi, H Westermann, WM Briggs, S Wenderoth, 2007.
Patient-reported and Physician-reported Depressive Conditions in Relation
to Asthma Severity and Control. Chest. 133(5), 1142-8. PMID: 18263683.
Rosenzweig JS, Van Deusen SK, Okpara O, Datillo PA, Briggs WM, Birkhahn
RH, 2008. Authorship, collaboration, and predictors of extramural funding in the emergency medicine literature. Am J Emerg Med. 26(1), 5-9.
PMID: 18082774.
Westermann H, Choi TN, Briggs WM, Charlson ME, Mancuso CA, 2008.
Obesity and exercise habits of asthmatic patients. Ann Allergy Asthma
Immunol. Nov;101(5):488-94.PMID: 19055202.
Hogle NJ, Briggs WM, Fowler DL, 2007.Documenting a learning curve and
test-retest reliability of two tasks on a virtual reality training simulator in
laparoscopic surgery. J Surg Educ. 64(6), 424-30. PMID: 18063281.
D’Ayala, M, C Martone, R M Smith, WM Briggs, M Potouridis, J S Deitch,
and L Wise, 2006. The effect of systemic anticoagulation in patients undergoing angioaccess surgery. Annals of Vascular Surgery. 22(1), 11-5.
PMID: 18055171.
Charlson ME, Peterson F, Krieger K, Hartman GS, Hollenberg J, Briggs
WM, et al., 2007. Improvement of outcomes after coronary artery bypass II:
a randomized trial comparing intraoperative high versus customized mean
arterial pressure. J. Cardiac Surgey. 22(6), 465-72. PMID: 18039205.
Charlson ME, Peterson F, Boutin-Foster C, Briggs WM, Ogedegbe G, McCulloch C, et al., 2008. Changing health behaviors to improve health outcomes after angioplasty: a randomized trial of net present value versus
future value risk communication.. Health Education Research. 23(5), 82639. PMID: 18025064.
Charlson, M, Peterson J., Syat B, Briggs WM, Kline R, Dodd M, Murad
V, Dione W, 2007. Outcomes of Community Based Social Service Interventions in Homebound Elders Int. J. Geriatric Psychiatry. 23(4), 427-32.
PMID: 17918183.
Hogle NJ, Briggs WM, Fowler DL. Documenting a learning curve and
test-retest reliability of two tasks on a virtual reality training simulator
in laparoscopic surgery. J Surg Educ. 2007 Nov-Dec;64(6):424-30. PMID:
18063281.
Mancuso, CA, T Choi, H Westermann, WM Briggs, S Wenderoth, 2007.
Measuring physical activity in asthma patients: two-minute walk test, repeated chair rise test, and self-reported energy expenditure. J. Asthma.
44(4), 333-40. PMID: 17530534.
Charlson ME, Charlson RE, Briggs W, Hollenberg J, 2007. Can disease
management target patients most likely to generate high costs? The impact
of comorbidity. J Gen Intern Med. 22(4), 464-9. PMID: 17372794.
Charlson ME, Boutin-Foster C, Mancuso CA, Peterson F, Ogedegbe G,
Briggs WM, Robbins L, Isen A, Allegrante JP, 2006. Randomized Controlled Trials of Positive Affect and Self-affirmation to Facilitate Healthy

Exhibit 2 Page 18 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

11

(46)

(47)

(48)

(49)

(50)

(51)

(52)

(53)

(54)

(55)

Behaviors in Patients with Cardiopulmonary Diseases: Rationale, Trial Design, and Methods. Contemporary Clinical Trials. 28(6), 748-62. PMID:
17459784.
Charlson ME, Boutin-Foster C., Mancuso C., Ogedegbe G., Peterson J.,
Briggs M., Allegrante J., Robbins L., Isen A., 2007. Using positive affect
and self affirmation to inform and to improve self management behaviors
in cardiopulmonary patients: Design, rationale and methods. Controlled
Clinical Trials. November 2007 (Vol. 28, Issue 6, Pages 748-762).
Melniker LA, Leibner E, McKenney MG, Lopez P, Briggs WM, Mancuso
CA., 2006. Randomized Controlled Clinical Trial of Point-of-Care, Limited
Ultrasonography (PLUS) for Trauma in the Emergency Department: The
First Sonography Outcomes Assessment Program (SOAP-1) Trial. Annals
of Emergency Medicine. 48(3), 227-235. PMID: 16934640.
Milling, TJ, C Holden, LA Melniker, WM Briggs, R Birkhahn, TJ Gaeta,
2006. Randomized controlled trial of single-operator vs. two-operator ultrasound guidance for internal jugular central venous cannulation. Acad
Emerg Med., 13(3), 245-7. PMID: 16495416.
Milla F, Skubas N, Briggs WM, Girardi LN, Lee LY, Ko W, Tortolani AJ,
Krieger KH, Isom OW, Mack CA, 2006. Epicardial beating heart cryoablation using a novel argon-based cryoclamp and linear probe. J Thorac
Cardiovasc Surg., 131(2), 403-11. PMID: 16434271.
Birkhahn, SK Van Deusen, O Okpara, PA Datillo, WM Briggs, TJ Gaeta,
2006. Funding and publishing trends of original research by emergency
medicine investigators over the past decade. Annals of Emergency Medicine,
13(1), 95-101. PMID: 16365335.
Birkhahn, WM Briggs, PA Datillo, SK Van Deusen, TJ Gaeta, 2006. Classifying patients suspected of appendicitis with regard to likelihood. American
Journal of Surgery, 191(4), 497-502. PMID: 16531143
Charlson ME, Charlson RE, Briggs WM, Hollenberg J, 2006. Can disease
management target patients most likely to generate high costs. J. General
Internal Medicine. 22(4), 464-9.
Milling, TJ, J Rose, WM Briggs, R Birkhahn, TJ Gaeta, JJ Bove, and
LA Melniker, 2005. Randomized, controlled clinical trial of point-of-care
limited ultrasonography assistance of central venous cannulation: the Third
Sonography Outcomes Assessment Program (SOAP-3) Trial. Crit Care
Med. 33(8), 1764-9. PMID: 16096454.
Garfield JL, Birkhahn RH, Gaeta TJ, Briggs WM, 2004. Diagnostic Delays
and Pathways on Route to Operative Intervention in Acute Appendicitis.
American Surgeon. 70(11), 1010-1013. PMID: 15586517.
Birkhahn RH, Gaeta TJ, Tloczkowski J, Mundy TA, Sharma M, Bove JJ,
Briggs WM, 2003. Emergency medicine trained physicians are proficient in
the insertion of transvenous pacemakers. Annals of Emergency Medicine.
43 (4), 469-474. PMID: 15039689.

3.1. Talks (I am years behind updating these).
(1) Briggs, 2016. The Crisis Of Evidence: Probability & The Nature Of Cause.
Institute of Statistical Science, Academia Sinica, Taipei, Taiwan.
(2) Wei Li,Piotr Gorecki, Robert Autin, William Briggs, Elie Semaan, Anthony
J. Tortolani, Marcus D’Ayala, 2011. Concurrent Prophylactic Placement of

506

Exhibit 2 Page 19 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

12

(3)

(4)

(5)
(6)

(7)

(8)

(9)

(10)

(11)

(12)

(13)

(14)

507

Inferior Vena Cava Filter (CPPOIVCF) in Gastric Bypass and Adjustable
Banding Operations: An analysis of the Bariatric Outcomes Longitudinal
Database. Eastern Vascular Society 25th Annual Meeting, 2011.
Wei Li, Jo Daniel, James Rucinski, Syed Gardezi, Piotr Gorecki, Paul
Thodiyil, Bashar Fahoum, William Briggs, Leslie Wise, 2010. FACSFactors
affecting patient disposition after ambulatory laparoscopic cholecystectomy
(ALC) cheanalysis of the National Survey of Ambulatory Surgery (NSAS).
American College of Surgeons.
Wei Li, Marcus D’Ayala, et al., William Briggs, 2010. Coronary bypass and
carotid endarterectomy (CEA): does a combined operative approach offer
better outcome? - Outcome of different management strategies in patients
with carotid stenosis undergoing coronary artery bypass grafting (CABG).
Vascular Annual Meeting.
Briggs, WM, 2007. On equi-probable priors, MAX ENT 2007, Saratoga
Springs, NY.
Briggs, WM, and RA Zaretzki, 2006. On producing probability forecasts
(from ensembles). 18th Conf. on Probability and Statistics in the Atmospheric Sciences, Atlanta, GA, Amer. Meteor. Soc.
Briggs, WM, and RA Zaretzki, 2006. Improvements on the ROC Curve:
Skill Plots for Forecast Evaluation. Invited. Joint Research Conference on
Statistics in Quality Industry and Technology, Knoxville, TN.
Briggs, WM, and RA Zaretzki, 2005. Skill Curves and ROC Curves for
Diagnoses, or Why Skill Curves are More Fun. Joint Statistical Meetings,
American Stat. Soc., Minneapolis, MN.
Briggs W.M., 2005. On the optimal combination of probabilistic forecasts
to maximize skill. International Symposium on Forecasting San Antonio,
TX. International Institute of Forecasters.
Briggs, WM, and D Ruppert, 2004. Assessing the skill of yes/no forecasts
for Markov observations. 17th Conf. on Probability and Statistics in the
Atmospheric Sciences, Seattle, WA, Amer. Meteor. Soc.
Melniker, L, E Liebner, B Tiffany, P Lopez, WM Briggs, M McKenney,
2004. Randomized clinical trial of point-of-care limited ultrasonography
(PLUS) for trauma in the emergency department. Annals of Emergency
Medicine, 44.
Birkhahn RH, Gaeta TJ, Van Deusen SK, Briggs WM, 2004. Classifying
patients suspected of appendicitis with regard to likelihood. Annals of
Emergency Medicine, 44 (4): S17-S17 51 Suppl. S.
Zandieh, SO, WM Briggs, JM Kuder, and CA Mancuso, 2004. Negative
perceptions of health care among caregivers of children auto-assigned to
a Medicaid managed care health plan. Ambulatory Pediatric Association
Meeting, San Francisco, CA; and National Research Service Award Trainees
Conference, San Diego, CA.
Melniker, L, E Liebner, B Tiffany, P Lopez, M Sharma, WM Briggs, M
McKenney, 2003. Cost Analysis of Point-of-care, Limited Ultrasonography (PLUS) in Trauma Patients: The Sonography Outcomes Assessment
Program (SOAP)-1 Trial. Academic Emergency Medicine, 11, 568.

Exhibit 2 Page 20 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

13

(15) Melniker, LA, WM Briggs, and CA Mancuso, 2003. Including comorbidity in the assessment of trauma patients: a revision of the trauma injury
severity score. J. Clin Epidemiology, Sep., 56(9), 921. PMID: 14505784.
(16) Briggs, WM, and RA Levine, 1998. Comparison of forecasts using the
bootstrap. 14th Conf. on Probability and Statistics in the Atmospheric
Sciences Phoenix, AZ, Amer. Meteor. Soc., 1-4.
(17) Briggs, WM, and R Zaretzki, 1998. The effect of randomly spaced observations on field forecast error scores. 14th Conf. on Probability and Statistics
in the Atmospheric Sciences Phoenix, AZ, Amer. Meteor. Soc., 5-8.
(18) Briggs, WM, and RA Levine, 1996. Wavelets and image comparison: new
approaches to field forecast verification. 13th Conf. on Probability and
Statistics in the Atmospheric Sciences, San Francisco, CA, Amer. Meteor.
Soc., 274-277.
(19) Briggs, WM, and DS Wilks, 1996. Modifying parameters of a daily stochastic weather generator using long-range forecasts. 13th Conf. on Probability
and Statistics in the Atmospheric Sciences, San Francisco, CA, Amer. Meteor. Soc., 243-2246.

508

Exhibit 2 Page 21 of 21 Document 9-2
Case 2:20-cv-01771-PP Filed 12/03/20

Pursuant to 28 U.S.C Section 1746, I,

, make the following

declaration.
1. I am over the age of 21 years and am a resident of Monroe County,
Florida.
2. I am under no legal disability that would prevent me from giving this
declaration.
3. I hold a Bachelor of Science degree in Mathematics and a Master of
Science degree in Statistics.
4. For thirty years, I have conducted statistical data analysis for
companies in various industries, including aerospace, consumer
packaged goods, disease detection and tracking, and fraud detection.
5. From November 13th, 2020 through November 28th, 2020, I conducted
in-depth statistical analysis of publicly available data on the 2020
U.S. Presidential Election. This data included vote counts for each
county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee.
6. The analysis yielded several “red flags” concerning the percentage of
votes won by candidate Biden in counties using voting machines
provided by Dominion Voting Systems. These red flags occurred in
several States in the country, including Wisconsin.
7. I began by using Chi-Squared Automatic Interaction Detection
(CHAID), which treats the data in an agnostic way—that is, it
imposes no parametric assumptions that could otherwise introduce
bias. Here, I posed the following question: “Do any voting machine

521

4 Page 1 of 4 Document 9-4
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

types appear to have unusual results?” The answer provided by the
statistical technique/algorithm was that machines from Dominion
Voting Systems (Dominion) produced abnormal results.
8. Subsequent graphical and statistical analysis shows the unusual
pattern involving machines from Dominion occurs in at least 100
counties and multiple States, including Wisconsin.
9. The results from most, if not all counties using the Dominion
machines is three to five point six percentage points higher in favor
of candidate Biden than the results should be. This pattern is seen
easily in graphical form when the results from “Dominion” counties
are overlaid against results from “non-Dominion” counties. The
results from “Dominion” counties do not match the results from the
rest of the counties in the United States. The results are certainly
statistically significant, with a p-value of < 0.00004. This translates
into a statistical impossibility that something unusual involving
Dominion machines is not occurring. This pattern appears in
multiple States, including Wisconsin, and the margin of votes
implied by the unusual activity would easily sway the election
results.
10.

The following graph shows the pattern. The large red dots are

counties in Wisconsin that use Dominion voting machines. Almost
all of them are above the blue prediction line, when in normal
situations approximately half of them would be below the prediction
line (as evidence by approximately half the counties in the U.S. (blue
dots) that are below the blue centerline). The p-value of statistical
analysis regarding the centerline for the red dots (Wisconsin counties
522

4 Page 2 of 4 Document 9-4
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

with Dominion machines) is 0.000000049, pointing to a statistical
impossibility that this is a “random” statistical anomaly. Some
external force caused this anomaly

11.

To confirm that Dominion machines were the source of the

pattern/anomaly, I conducted further analysis using propensity
scoring using U.S. census variables (Including ethnicities, income,
professions, population density and other social/economic data) ,
which was used to place counties into paired groups. Such an
analysis is important because one concern could be that counties
with Dominion systems are systematically different from their
counterparts, so abnormalities in the margin for Biden are driven by
other characteristics unrelated to the election.

523

4 Page 3 of 4 Document 9-4
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

12.

After matching counties using propensity score analysis, the only

difference between the groups was the presence of Dominion
machines. This approach again showed a highly statistically
significant difference between the two groups, with candidate Biden
again averaging three percentage points higher in Dominion counties
than in the associated paired county. The associated p-value is <
0.00005, against indicating a statistical impossibility that something
unusual is not occurring involving Dominion machines.
13.

The results of the analysis and the pattern seen in the included

graph strongly suggest a systemic, system-wide algorithm was
enacted by an outside agent, causing the results of Wisconsin’s vote
tallies to be inflated by somewhere between three and five point six
percentage points. Statistical estimating yields that in Wisconsin,
the best estimate of the number of impacted votes is 181,440.
However, a 95% confidence interval calculation yields that as many
as 236,520 votes may have been impacted.

I declare under penalty of perjury that the forgoing is true and correct.
Executed this November 28th, 2020.
,
/s/

524

4 Page 4 of 4 Document 9-4
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ADAMS COUNTY - 01
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
ASHLAND COUNTY - 02
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03

CITY OF ADAMS - 01201
TOWN OF ADAMS - 01002
TOWN OF BIG FLATS - 01004
TOWN OF COLBURN - 01006
TOWN OF DELL PRAIRIE - 01008
TOWN OF EASTON - 01010
TOWN OF JACKSON - 01012
TOWN OF LEOLA - 01014
TOWN OF LINCOLN - 01016
TOWN OF MONROE - 01018
TOWN OF NEW CHESTER - 01020
TOWN OF NEW HAVEN - 01022
TOWN OF PRESTON - 01024
TOWN OF QUINCY - 01026
TOWN OF RICHFIELD - 01028
TOWN OF ROME - 01030
TOWN OF SPRINGVILLE - 01032
TOWN OF STRONGS PRAIRIE - 01034
VILLAGE OF FRIENDSHIP - 01126
CITY OF ASHLAND - MAIN - 02201
CITY OF MELLEN - 02251
TOWN OF AGENDA - 02002
TOWN OF ASHLAND - 02004
TOWN OF CHIPPEWA - 02006
TOWN OF GINGLES - 02008
TOWN OF GORDON - 02010
TOWN OF JACOBS - 02012
TOWN OF LA POINTE - 02014
TOWN OF MARENGO - 02016
TOWN OF MORSE - 02018
TOWN OF PEEKSVILLE - 02020
TOWN OF SANBORN - 02022
TOWN OF SHANAGOLDEN - 02024
TOWN OF WHITE RIVER - 02026
VILLAGE OF BUTTERNUT - 02106
CITY OF BARRON - 03206
CITY OF CHETEK - 03211
CITY OF CUMBERLAND - 03212
CITY OF RICE LAKE - 03276
TOWN OF ALMENA - 03002
TOWN OF ARLAND - 03004
TOWN OF BARRON - 03006
TOWN OF BEAR LAKE - 03008
TOWN OF CEDAR LAKE - 03010
TOWN OF CHETEK - 03012

ES&S DS200
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
None
None
None
ES&S M100
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
Sequoia Voting - Optech Insight
None

ES&S AutoMARK
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
Vote Pad
Vote Pad
ES&S AutoMARK
Vote Pad
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Vote Pad
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

525

5 Page 1 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BARRON COUNTY - 03
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04

TOWN OF CLINTON - 03014
TOWN OF CRYSTAL LAKE - 03016
TOWN OF CUMBERLAND - 03018
TOWN OF DALLAS - 03020
TOWN OF DOVRE - 03022
TOWN OF DOYLE - 03024
TOWN OF LAKELAND - 03026
TOWN OF MAPLE GROVE - 03028
TOWN OF MAPLE PLAIN - 03030
TOWN OF OAK GROVE - 03032
TOWN OF PRAIRIE FARM - 03034
TOWN OF PRAIRIE LAKE - 03036
TOWN OF RICE LAKE - 03038
TOWN OF SIOUX CREEK - 03040
TOWN OF STANFOLD - 03042
TOWN OF STANLEY - 03044
TOWN OF SUMNER - 03046
TOWN OF TURTLE LAKE - 03048
TOWN OF VANCE CREEK - 03050
VILLAGE OF ALMENA - 03101
VILLAGE OF CAMERON - 03111
VILLAGE OF DALLAS - 03116
VILLAGE OF HAUGEN - 03136
VILLAGE OF PRAIRIE FARM - 03171
VILLAGE OF TURTLE LAKE - MAIN - 03186
CITY OF BAYFIELD - 04206
CITY OF WASHBURN - 04291
TOWN OF BARKSDALE - 04002
TOWN OF BARNES - 04004
TOWN OF BAYFIELD - 04006
TOWN OF BAYVIEW - 04008
TOWN OF BELL - 04010
TOWN OF CABLE - 04012
TOWN OF CLOVER - 04014
TOWN OF DELTA - 04016
TOWN OF DRUMMOND - 04018
TOWN OF EILEEN - 04020
TOWN OF GRAND VIEW - 04021
TOWN OF HUGHES - 04022
TOWN OF IRON RIVER - 04024
TOWN OF KELLY - 04026
TOWN OF KEYSTONE - 04028
TOWN OF LINCOLN - 04030
TOWN OF MASON - 04032
TOWN OF NAMAKAGON - 04034

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
None
None
None
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
None
ES&S M100
None
None
None
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
None
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

526

5 Page 2 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BAYFIELD COUNTY - 04
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BROWN COUNTY - 05
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06

TOWN OF ORIENTA - 04036
TOWN OF OULU - 04038
TOWN OF PILSEN - 04040
TOWN OF PORT WING - 04042
TOWN OF RUSSELL - 04046
TOWN OF TRIPP - 04048
TOWN OF WASHBURN - 04050
VILLAGE OF MASON - 04151
CITY OF DE PERE - 05216
CITY OF GREEN BAY - 05231
TOWN OF EATON - 05010
TOWN OF GLENMORE - 05012
TOWN OF GREEN BAY - 05014
TOWN OF HOLLAND - 05018
TOWN OF HUMBOLDT - 05022
TOWN OF LAWRENCE - 05024
TOWN OF LEDGEVIEW - 05025
TOWN OF MORRISON - 05026
TOWN OF NEW DENMARK - 05028
TOWN OF PITTSFIELD - 05030
TOWN OF ROCKLAND - 05034
TOWN OF SCOTT - 05036
TOWN OF WRIGHTSTOWN - 05040
VILLAGE OF ALLOUEZ - 05102
VILLAGE OF ASHWAUBENON - 05104
VILLAGE OF BELLEVUE - 05106
VILLAGE OF DENMARK - 05116
VILLAGE OF HOBART - 05126
VILLAGE OF HOWARD - MAIN - 05136
VILLAGE OF PULASKI - MAIN - 05171
VILLAGE OF SUAMICO - 05178
VILLAGE OF WRIGHTSTOWN - MAIN - 05191
CITY OF ALMA - 06201
CITY OF BUFFALO CITY - 06206
CITY OF FOUNTAIN CITY - 06226
CITY OF MONDOVI - 06251
TOWN OF ALMA - 06002
TOWN OF BELVIDERE - 06004
TOWN OF BUFFALO - 06006
TOWN OF CANTON - 06008
TOWN OF CROSS - 06010
TOWN OF DOVER - 06012
TOWN OF GILMANTON - 06014
TOWN OF GLENCOE - 06016
TOWN OF LINCOLN - 06018

None
ES&S M100
None
None
ES&S M100
None
ES&S M100
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

527

5 Page 3 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BUFFALO COUNTY - 06
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
BURNETT COUNTY - 07
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08

TOWN OF MAXVILLE - 06020
TOWN OF MILTON - 06022
TOWN OF MODENA - 06024
TOWN OF MONDOVI - 06026
TOWN OF MONTANA - 06028
TOWN OF NAPLES - 06030
TOWN OF NELSON - 06032
TOWN OF WAUMANDEE - 06034
VILLAGE OF COCHRANE - 06111
VILLAGE OF NELSON - 06154
TOWN OF ANDERSON - 07002
TOWN OF BLAINE - 07004
TOWN OF DANIELS - 07006
TOWN OF DEWEY - 07008
TOWN OF GRANTSBURG - 07010
TOWN OF JACKSON - 07012
TOWN OF LA FOLLETTE - 07014
TOWN OF LINCOLN - 07016
TOWN OF MEENON - 07018
TOWN OF OAKLAND - 07020
TOWN OF ROOSEVELT - 07022
TOWN OF RUSK - 07024
TOWN OF SAND LAKE - 07026
TOWN OF SCOTT - 07028
TOWN OF SIREN - 07030
TOWN OF SWISS - 07032
TOWN OF TRADE LAKE - 07034
TOWN OF UNION - 07036
TOWN OF WEBB LAKE - 07038
TOWN OF WEST MARSHLAND - 07040
TOWN OF WOOD RIVER - 07042
VILLAGE OF GRANTSBURG - 07131
VILLAGE OF SIREN - 07181
VILLAGE OF WEBSTER - 07191
CITY OF BRILLION - 08206
CITY OF CHILTON - 08211
CITY OF NEW HOLSTEIN - 08261
TOWN OF BRILLION - 08002
TOWN OF BROTHERTOWN - 08004
TOWN OF CHARLESTOWN - 08006
TOWN OF CHILTON - 08008
TOWN OF HARRISON - 08010
TOWN OF NEW HOLSTEIN - 08012
TOWN OF RANTOUL - 08014
TOWN OF STOCKBRIDGE - 08016

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

528

5 Page 4 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CALUMET COUNTY - 08
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CHIPPEWA COUNTY - 09
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10

TOWN OF WOODVILLE - 08018
VILLAGE OF HARRISON - MAIN - 08131
VILLAGE OF HILBERT - 08136
VILLAGE OF POTTER - 08160
VILLAGE OF SHERWOOD - 08179
VILLAGE OF STOCKBRIDGE - 08181
CITY OF BLOOMER - 09206
CITY OF CHIPPEWA FALLS - 09211
CITY OF CORNELL - 09213
CITY OF STANLEY - MAIN - 09281
TOWN OF ANSON - 09002
TOWN OF ARTHUR - 09004
TOWN OF AUBURN - 09006
TOWN OF BIRCH CREEK - 09008
TOWN OF BLOOMER - 09010
TOWN OF CLEVELAND - 09012
TOWN OF COLBURN - 09014
TOWN OF COOKS VALLEY - 09016
TOWN OF DELMAR - 09018
TOWN OF EAGLE POINT - 09020
TOWN OF EDSON - 09022
TOWN OF ESTELLA - 09024
TOWN OF GOETZ - 09026
TOWN OF HALLIE - 09028
TOWN OF HOWARD - 09032
TOWN OF LAFAYETTE - 09034
TOWN OF LAKE HOLCOMBE - 09035
TOWN OF RUBY - 09036
TOWN OF SAMPSON - 09038
TOWN OF SIGEL - 09040
TOWN OF TILDEN - 09042
TOWN OF WHEATON - 09044
TOWN OF WOODMOHR - 09046
VILLAGE OF BOYD - 09106
VILLAGE OF CADOTT - 09111
VILLAGE OF LAKE HALLIE - 09128
VILLAGE OF NEW AUBURN - MAIN - 09161
CITY OF ABBOTSFORD - MAIN - 10201
CITY OF COLBY - MAIN - 10211
CITY OF GREENWOOD - 10231
CITY OF LOYAL - 10246
CITY OF NEILLSVILLE - 10261
CITY OF OWEN - 10265
CITY OF THORP - 10286
TOWN OF BEAVER - 10002

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

529

5 Page 5 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
CLARK COUNTY - 10
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11

TOWN OF BUTLER - 10004
TOWN OF COLBY - 10006
TOWN OF DEWHURST - 10008
TOWN OF EATON - 10010
TOWN OF FOSTER - 10012
TOWN OF FREMONT - 10014
TOWN OF GRANT - 10016
TOWN OF GREEN GROVE - 10018
TOWN OF HENDREN - 10020
TOWN OF HEWETT - 10022
TOWN OF HIXON - 10024
TOWN OF HOARD - 10026
TOWN OF LEVIS - 10028
TOWN OF LONGWOOD - 10030
TOWN OF LOYAL - 10032
TOWN OF LYNN - 10034
TOWN OF MAYVILLE - 10036
TOWN OF MEAD - 10038
TOWN OF MENTOR - 10040
TOWN OF PINE VALLEY - 10042
TOWN OF RESEBURG - 10044
TOWN OF SEIF - 10046
TOWN OF SHERMAN - 10048
TOWN OF SHERWOOD - 10050
TOWN OF THORP - 10052
TOWN OF UNITY - 10054
TOWN OF WARNER - 10056
TOWN OF WASHBURN - 10058
TOWN OF WESTON - 10060
TOWN OF WITHEE - 10062
TOWN OF WORDEN - 10064
TOWN OF YORK - 10066
VILLAGE OF CURTISS - 10111
VILLAGE OF DORCHESTER - MAIN - 10116
VILLAGE OF GRANTON - 10131
VILLAGE OF WITHEE - 10191
CITY OF COLUMBUS - MAIN - 11211
CITY OF LODI - 11246
CITY OF PORTAGE - 11271
CITY OF WISCONSIN DELLS - MAIN - 11291
TOWN OF ARLINGTON - 11002
TOWN OF CALEDONIA - 11004
TOWN OF COLUMBUS - 11006
TOWN OF COURTLAND - 11008
TOWN OF DEKORRA - 11010

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S AutoMARK
ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

530

5 Page 6 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
COLUMBIA COUNTY - 11
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12

TOWN OF FORT WINNEBAGO - 11012
TOWN OF FOUNTAIN PRAIRIE - 11014
TOWN OF HAMPDEN - 11016
TOWN OF LEEDS - 11018
TOWN OF LEWISTON - 11020
TOWN OF LODI - 11022
TOWN OF LOWVILLE - 11024
TOWN OF MARCELLON - 11026
TOWN OF NEWPORT - 11028
TOWN OF OTSEGO - 11030
TOWN OF PACIFIC - 11032
TOWN OF RANDOLPH - 11034
TOWN OF SCOTT - 11036
TOWN OF SPRINGVALE - 11038
TOWN OF WEST POINT - 11040
TOWN OF WYOCENA - 11042
VILLAGE OF ARLINGTON - 11101
VILLAGE OF CAMBRIA - 11111
VILLAGE OF DOYLESTOWN - 11116
VILLAGE OF FALL RIVER - 11126
VILLAGE OF FRIESLAND - 11127
VILLAGE OF PARDEEVILLE - 11171
VILLAGE OF POYNETTE - 11172
VILLAGE OF RIO - 11177
VILLAGE OF WYOCENA - 11191
CITY OF PRAIRIE DU CHIEN - 12271
TOWN OF BRIDGEPORT - 12002
TOWN OF CLAYTON - 12004
TOWN OF EASTMAN - 12006
TOWN OF FREEMAN - 12008
TOWN OF HANEY - 12010
TOWN OF MARIETTA - 12012
TOWN OF PRAIRIE DU CHIEN - 12014
TOWN OF SCOTT - 12016
TOWN OF SENECA - 12018
TOWN OF UTICA - 12020
TOWN OF WAUZEKA - 12022
VILLAGE OF BELL CENTER - 12106
VILLAGE OF DE SOTO VILLAGE OF EASTMAN - 12121
VILLAGE OF FERRYVILLE - 12126
VILLAGE OF GAYS MILLS - 12131
VILLAGE OF LYNXVILLE - 12146
VILLAGE OF MT. STERLING - 12151
VILLAGE OF SOLDIERS GROVE - 12181

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

531

5 Page 7 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

CRAWFORD COUNTY - 12
CRAWFORD COUNTY - 12
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13

VILLAGE OF STEUBEN - 12182
VILLAGE OF WAUZEKA - 12191
CITY OF FITCHBURG - 13225
CITY OF MADISON - 13251
CITY OF MIDDLETON - 13255
CITY OF MONONA - 13258
CITY OF STOUGHTON - 13281
CITY OF SUN PRAIRIE - 13282
CITY OF VERONA - 13286
TOWN OF ALBION - 13002
TOWN OF BERRY - 13004
TOWN OF BLACK EARTH - 13006
TOWN OF BLOOMING GROVE - 13008
TOWN OF BLUE MOUNDS - 13010
TOWN OF BRISTOL - 13012
TOWN OF BURKE - 13014
TOWN OF CHRISTIANA - 13016
TOWN OF COTTAGE GROVE - 13018
TOWN OF CROSS PLAINS - 13020
TOWN OF DANE - 13022
TOWN OF DEERFIELD - 13024
TOWN OF DUNKIRK - 13026
TOWN OF DUNN - 13028
TOWN OF MADISON - 13032
TOWN OF MAZOMANIE - 13034
TOWN OF MEDINA - 13036
TOWN OF MIDDLETON - 13038
TOWN OF MONTROSE - 13040
TOWN OF OREGON - 13042
TOWN OF PERRY - 13044
TOWN OF PLEASANT SPRINGS - 13046
TOWN OF PRIMROSE - 13048
TOWN OF ROXBURY - 13050
TOWN OF RUTLAND - 13052
TOWN OF SPRINGDALE - 13054
TOWN OF SPRINGFIELD - 13056
TOWN OF SUN PRAIRIE - 13058
TOWN OF VERMONT - 13060
TOWN OF VERONA - 13062
TOWN OF VIENNA - 13064
TOWN OF WESTPORT - 13066
TOWN OF WINDSOR - 13068
TOWN OF YORK - 13070
VILLAGE OF BELLEVILLE - MAIN - 13106
VILLAGE OF BLACK EARTH - 13107

None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

532

5 Page 8 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DANE COUNTY - 13
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14

VILLAGE OF BLUE MOUNDS - 13108
VILLAGE OF BROOKLYN - MAIN - 13109
VILLAGE OF CAMBRIDGE - MAIN - 13111
VILLAGE OF COTTAGE GROVE - 13112
VILLAGE OF CROSS PLAINS - 13113
VILLAGE OF DANE - 13116
VILLAGE OF DEERFIELD - 13117
VILLAGE OF DEFOREST - 13118
VILLAGE OF MAPLE BLUFF - 13151
VILLAGE OF MARSHALL - 13152
VILLAGE OF MAZOMANIE - 13153
VILLAGE OF MCFARLAND - 13154
VILLAGE OF MOUNT HOREB - 13157
VILLAGE OF OREGON - 13165
VILLAGE OF ROCKDALE - 13176
VILLAGE OF SHOREWOOD HILLS - 13181
VILLAGE OF WAUNAKEE - 13191
CITY OF BEAVER DAM - 14206
CITY OF FOX LAKE - 14226
CITY OF HORICON - 14236
CITY OF JUNEAU - 14241
CITY OF MAYVILLE - 14251
CITY OF WAUPUN - MAIN - 14292
TOWN OF ASHIPPUN - 14002
TOWN OF BEAVER DAM - 14004
TOWN OF BURNETT - 14006
TOWN OF CALAMUS - 14008
TOWN OF CHESTER - 14010
TOWN OF CLYMAN - 14012
TOWN OF ELBA - 14014
TOWN OF EMMET - 14016
TOWN OF FOX LAKE - 14018
TOWN OF HERMAN - 14020
TOWN OF HUBBARD - 14022
TOWN OF HUSTISFORD - 14024
TOWN OF LEBANON - 14026
TOWN OF LEROY - 14028
TOWN OF LOMIRA - 14030
TOWN OF LOWELL - 14032
TOWN OF OAK GROVE - 14034
TOWN OF PORTLAND - 14036
TOWN OF RUBICON - 14038
TOWN OF SHIELDS - 14040
TOWN OF THERESA - 14042
TOWN OF TRENTON - 14044

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

533

5 Page 9 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DODGE COUNTY - 14
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOOR COUNTY - 15
DOUGLAS COUNTY - 16 as of 8/2018
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16

TOWN OF WESTFORD - 14046
TOWN OF WILLIAMSTOWN - 14048
VILLAGE OF BROWNSVILLE - 14106
VILLAGE OF CLYMAN - 14111
VILLAGE OF HUSTISFORD - 14136
VILLAGE OF IRON RIDGE - 14141
VILLAGE OF KEKOSKEE - 14143
VILLAGE OF LOMIRA - 14146
VILLAGE OF LOWELL - 14147
VILLAGE OF NEOSHO - 14161
VILLAGE OF RANDOLPH - MAIN - 14176
VILLAGE OF REESEVILLE - 14177
VILLAGE OF THERESA - 14186
CITY OF STURGEON BAY - 15281
TOWN OF BAILEYS HARBOR - 15002
TOWN OF BRUSSELS - 15004
TOWN OF CLAY BANKS - 15006
TOWN OF EGG HARBOR - 15008
TOWN OF FORESTVILLE - 15010
TOWN OF GARDNER - 15012
TOWN OF GIBRALTAR - 15014
TOWN OF JACKSONPORT - 15016
TOWN OF LIBERTY GROVE - 15018
TOWN OF NASEWAUPEE - 15020
TOWN OF SEVASTOPOL - 15022
TOWN OF STURGEON BAY - 15024
TOWN OF UNION - 15026
TOWN OF WASHINGTON - 15028
VILLAGE OF EGG HARBOR - 15118
VILLAGE OF EPHRAIM - 15121
VILLAGE OF FORESTVILLE - 15127
VILLAGE OF SISTER BAY - 15181
CITY OF SUPERIOR - 16281
TOWN OF AMNICON - 16002
TOWN OF BENNETT - 16004
TOWN OF BRULE - 16006
TOWN OF CLOVERLAND - 16008
TOWN OF DAIRYLAND - 16010
TOWN OF GORDON - 16012
TOWN OF HAWTHORNE - 16014
TOWN OF HIGHLAND - 16016
TOWN OF LAKESIDE - 16018
TOWN OF MAPLE - 16020
TOWN OF OAKLAND - 16022
TOWN OF PARKLAND - 16024

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

534

Exhibit 5 Page 10 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DOUGLAS COUNTY - 16
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
DUNN COUNTY - 17
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18

TOWN OF SOLON SPRINGS - 16026
TOWN OF SUMMIT - 16028
TOWN OF SUPERIOR - 16030
TOWN OF WASCOTT - 16032
VILLAGE OF LAKE NEBAGAMON - 16146
VILLAGE OF OLIVER - 16165
VILLAGE OF POPLAR - 16171
VILLAGE OF SOLON SPRINGS - 16181
VILLAGE OF SUPERIOR - 16182
CITY OF MENOMONIE - 17251
TOWN OF COLFAX - 17002
TOWN OF DUNN - 17004
TOWN OF EAU GALLE - 17006
TOWN OF ELK MOUND - 17008
TOWN OF GRANT - 17010
TOWN OF HAY RIVER - 17012
TOWN OF LUCAS - 17014
TOWN OF MENOMONIE - 17016
TOWN OF NEW HAVEN - 17018
TOWN OF OTTER CREEK - 17020
TOWN OF PERU - 17022
TOWN OF RED CEDAR - 17024
TOWN OF ROCK CREEK - 17026
TOWN OF SAND CREEK - 17028
TOWN OF SHERIDAN - 17030
TOWN OF SHERMAN - 17032
TOWN OF SPRING BROOK - 17034
TOWN OF STANTON - 17036
TOWN OF TAINTER - 17038
TOWN OF TIFFANY - 17040
TOWN OF WESTON - 17042
TOWN OF WILSON - 17044
VILLAGE OF BOYCEVILLE - 17106
VILLAGE OF COLFAX - 17111
VILLAGE OF DOWNING - 17116
VILLAGE OF ELK MOUND - 17121
VILLAGE OF KNAPP - 17141
VILLAGE OF RIDGELAND - 17176
VILLAGE OF WHEELER - 17191
CITY OF ALTOONA - 18201
CITY OF AUGUSTA - 18202
CITY OF EAU CLAIRE - MAIN - 18221
TOWN OF BRIDGE CREEK - 18002
TOWN OF BRUNSWICK - 18004
TOWN OF CLEAR CREEK - 18006

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

535

Exhibit 5 Page 11 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
EAU CLAIRE COUNTY - 18
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FLORENCE COUNTY - 19
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20

TOWN OF DRAMMEN - 18008
TOWN OF FAIRCHILD - 18010
TOWN OF LINCOLN - 18012
TOWN OF LUDINGTON - 18014
TOWN OF OTTER CREEK - 18016
TOWN OF PLEASANT VALLEY - 18018
TOWN OF SEYMOUR - 18020
TOWN OF UNION - 18022
TOWN OF WASHINGTON - 18024
TOWN OF WILSON - 18026
VILLAGE OF FAIRCHILD - 18126
VILLAGE OF FALL CREEK - 18127
TOWN OF AURORA - 19002
TOWN OF COMMONWEALTH - 19004
TOWN OF FENCE - 19006
TOWN OF FERN - 19008
TOWN OF FLORENCE - 19010
TOWN OF HOMESTEAD - 19012
TOWN OF LONG LAKE - 19014
TOWN OF TIPLER - 19016
CITY OF FOND DU LAC - 20226
CITY OF RIPON - 20276
CITY OF WAUPUN - 14292
TOWN OF ALTO - 20002
TOWN OF ASHFORD - 20004
TOWN OF AUBURN - 20006
TOWN OF BYRON - 20008
TOWN OF CALUMET - 20010
TOWN OF EDEN - 20012
TOWN OF ELDORADO - 20014
TOWN OF EMPIRE - 20016
TOWN OF FOND DU LAC - 20018
TOWN OF FOREST - 20020
TOWN OF FRIENDSHIP - 20022
TOWN OF LAMARTINE - 20024
TOWN OF MARSHFIELD - 20026
TOWN OF METOMEN - 20028
TOWN OF OAKFIELD - 20030
TOWN OF OSCEOLA - 20032
TOWN OF RIPON - 20034
TOWN OF ROSENDALE - 20036
TOWN OF SPRINGVALE - 20038
TOWN OF TAYCHEEDAH - 20040
TOWN OF WAUPUN - 20042
VILLAGE OF BRANDON - 20106

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

536

Exhibit 5 Page 12 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOND DU LAC COUNTY - 20
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
FOREST COUNTY - 21
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22

VILLAGE OF CAMPBELLSPORT - 20111
VILLAGE OF EDEN - 20121
VILLAGE OF FAIRWATER - 20126
VILLAGE OF MOUNT CALVARY - 20151
VILLAGE OF NORTH FOND DU LAC - 20161
VILLAGE OF OAKFIELD - 20165
VILLAGE OF ROSENDALE - 20176
VILLAGE OF ST. CLOUD - 20181
CITY OF CRANDON - 21211
TOWN OF ALVIN - 21002
TOWN OF ARGONNE - 21004
TOWN OF ARMSTRONG CREEK - 21006
TOWN OF BLACKWELL - 21008
TOWN OF CASWELL - 21010
TOWN OF CRANDON - 21012
TOWN OF FREEDOM - 21014
TOWN OF HILES - 21016
TOWN OF LAONA - 21018
TOWN OF LINCOLN - 21020
TOWN OF NASHVILLE - 21022
TOWN OF POPPLE RIVER - 21024
TOWN OF ROSS - 21026
TOWN OF WABENO - 21028
CITY OF BOSCOBEL - 22206
CITY OF CUBA CITY - MAIN - 22211
CITY OF FENNIMORE - 22226
CITY OF LANCASTER - 22246
CITY OF PLATTEVILLE - 22271
TOWN OF BEETOWN - 22002
TOWN OF BLOOMINGTON - 22004
TOWN OF BOSCOBEL - 22006
TOWN OF CASSVILLE - 22008
TOWN OF CASTLE ROCK - 22010
TOWN OF CLIFTON - 22012
TOWN OF ELLENBORO - 22014
TOWN OF FENNIMORE - 22016
TOWN OF GLEN HAVEN - 22018
TOWN OF HARRISON - 22020
TOWN OF HAZEL GREEN - 22022
TOWN OF HICKORY GROVE - 22024
TOWN OF JAMESTOWN - 22026
TOWN OF LIBERTY - 22028
TOWN OF LIMA - 22030
TOWN OF LITTLE GRANT - 22032
TOWN OF MARION - 22034

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

537

Exhibit 5 Page 13 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GRANT COUNTY - 22
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23

TOWN OF MILLVILLE - 22036
TOWN OF MOUNT HOPE - 22038
TOWN OF MOUNT IDA - 22040
TOWN OF MUSCODA - 22042
TOWN OF NORTH LANCASTER - 22044
TOWN OF PARIS - 22046
TOWN OF PATCH GROVE - 22048
TOWN OF PLATTEVILLE - 22050
TOWN OF POTOSI - 22052
TOWN OF SMELSER - 22054
TOWN OF SOUTH LANCASTER - 22056
TOWN OF WATERLOO - 22058
TOWN OF WATTERSTOWN - 22060
TOWN OF WINGVILLE - 22062
TOWN OF WOODMAN - 22064
TOWN OF WYALUSING - 22066
VILLAGE OF BAGLEY - 22106
VILLAGE OF BLOOMINGTON - 22107
VILLAGE OF BLUE RIVER - 22108
VILLAGE OF CASSVILLE - 22111
VILLAGE OF DICKEYVILLE - 22116
VILLAGE OF HAZEL GREEN - MAIN - 22136
VILLAGE OF LIVINGSTON - MAIN - 22147
VILLAGE OF MONTFORT - MAIN - 22151
VILLAGE OF MOUNT HOPE - 22152
VILLAGE OF MUSCODA - MAIN - 22153
VILLAGE OF PATCH GROVE - 22171
VILLAGE OF POTOSI - 22172
VILLAGE OF TENNYSON - 22186
VILLAGE OF WOODMAN - 22191
CITY OF BRODHEAD - MAIN - 23206
CITY OF MONROE - 23251
TOWN OF ADAMS - 23002
TOWN OF ALBANY - 23004
TOWN OF BROOKLYN - 23006
TOWN OF CADIZ - 23008
TOWN OF CLARNO - 23010
TOWN OF DECATUR - 23012
TOWN OF EXETER - 23014
TOWN OF JEFFERSON - 23016
TOWN OF JORDAN - 23018
TOWN OF MONROE - 23020
TOWN OF MOUNT PLEASANT - 23022
TOWN OF NEW GLARUS - 23024
TOWN OF SPRING GROVE - 23026

None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

538

Exhibit 5 Page 14 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN COUNTY - 23
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
GREEN LAKE COUNTY - 24
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25

TOWN OF SYLVESTER - 23028
TOWN OF WASHINGTON - 23030
TOWN OF YORK - 23032
VILLAGE OF ALBANY - 23101
VILLAGE OF BROWNTOWN - 23110
VILLAGE OF MONTICELLO - 23151
VILLAGE OF NEW GLARUS - 23161
CITY OF BERLIN - MAIN - 24206
CITY OF GREEN LAKE - 24231
CITY OF MARKESAN - 24251
CITY OF PRINCETON - 24271
TOWN OF BERLIN - 24002
TOWN OF BROOKLYN - 24004
TOWN OF GREEN LAKE - 24006
TOWN OF KINGSTON - 24008
TOWN OF MACKFORD - 24010
TOWN OF MANCHESTER - 24012
TOWN OF MARQUETTE - 24014
TOWN OF PRINCETON - 24016
TOWN OF SENECA - 24020
TOWN OF ST. MARIE - 24018
VILLAGE OF KINGSTON - 24141
VILLAGE OF MARQUETTE - 24154
CITY OF DODGEVILLE - 25216
CITY OF MINERAL POINT - 25251
TOWN OF ARENA - 25002
TOWN OF BRIGHAM - 25004
TOWN OF CLYDE - 25006
TOWN OF DODGEVILLE - 25008
TOWN OF EDEN - 25010
TOWN OF HIGHLAND - 25012
TOWN OF LINDEN - 25014
TOWN OF MIFFLIN - 25016
TOWN OF MINERAL POINT - 25018
TOWN OF MOSCOW - 25020
TOWN OF PULASKI - 25022
TOWN OF RIDGEWAY - 25024
TOWN OF WALDWICK - 25026
TOWN OF WYOMING - 25028
VILLAGE OF ARENA - 25101
VILLAGE OF AVOCA - 25102
VILLAGE OF BARNEVELD - 25106
VILLAGE OF COBB - 25111
VILLAGE OF HIGHLAND - 25136
VILLAGE OF HOLLANDALE - 25137

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

539

Exhibit 5 Page 15 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

IOWA COUNTY - 25
IOWA COUNTY - 25
IOWA COUNTY - 25
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
IRON COUNTY - 26
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JACKSON COUNTY - 27
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28

VILLAGE OF LINDEN - 25146
VILLAGE OF REWEY - 25176
VILLAGE OF RIDGEWAY - 25177
CITY OF HURLEY - 26236
CITY OF MONTREAL - 26251
TOWN OF ANDERSON - 26002
TOWN OF CAREY - 26004
TOWN OF GURNEY - 26006
TOWN OF KIMBALL - 26008
TOWN OF KNIGHT - 26010
TOWN OF MERCER - 26012
TOWN OF OMA - 26014
TOWN OF PENCE - 26016
TOWN OF SAXON - 26018
TOWN OF SHERMAN - 26020
CITY OF BLACK RIVER FALLS - 27206
TOWN OF ADAMS - 27002
TOWN OF ALBION - 27004
TOWN OF ALMA - 27006
TOWN OF BEAR BLUFF - 27008
TOWN OF BROCKWAY - 27010
TOWN OF CITY POINT - 27012
TOWN OF CLEVELAND - 27014
TOWN OF CURRAN - 27016
TOWN OF FRANKLIN - 27018
TOWN OF GARDEN VALLEY - 27020
TOWN OF GARFIELD - 27022
TOWN OF HIXTON - 27024
TOWN OF IRVING - 27026
TOWN OF KNAPP - 27028
TOWN OF KOMENSKY - 27030
TOWN OF MANCHESTER - 27032
TOWN OF MELROSE - 27034
TOWN OF MILLSTON - 27036
TOWN OF NORTH BEND - 27038
TOWN OF NORTHFIELD - 27040
TOWN OF SPRINGFIELD - 27042
VILLAGE OF ALMA CENTER - 27101
VILLAGE OF HIXTON - 27136
VILLAGE OF MELROSE - 27151
VILLAGE OF MERRILLAN - 27152
VILLAGE OF TAYLOR - 27186
CITY OF FORT ATKINSON - 28226
CITY OF JEFFERSON - 28241
CITY OF LAKE MILLS - 28246

None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

540

Exhibit 5 Page 16 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JEFFERSON COUNTY - 28
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29

CITY OF WATERLOO - 28290
CITY OF WATERTOWN - MAIN - 28291
TOWN OF AZTALAN - 28002
TOWN OF COLD SPRING - 28004
TOWN OF CONCORD - 28006
TOWN OF FARMINGTON - 28008
TOWN OF HEBRON - 28010
TOWN OF IXONIA - 28012
TOWN OF JEFFERSON - 28014
TOWN OF KOSHKONONG - 28016
TOWN OF LAKE MILLS - 28018
TOWN OF MILFORD - 28020
TOWN OF OAKLAND - 28022
TOWN OF PALMYRA - 28024
TOWN OF SULLIVAN - 28026
TOWN OF SUMNER - 28028
TOWN OF WATERLOO - 28030
TOWN OF WATERTOWN - 28032
VILLAGE OF JOHNSON CREEK - 28141
VILLAGE OF PALMYRA - 28171
VILLAGE OF SULLIVAN - 28181
CITY OF ELROY - 29221
CITY OF MAUSTON - 29251
CITY OF NEW LISBON - 29261
TOWN OF ARMENIA - 29002
TOWN OF CLEARFIELD - 29004
TOWN OF CUTLER - 29006
TOWN OF FINLEY - 29008
TOWN OF FOUNTAIN - 29010
TOWN OF GERMANTOWN - 29012
TOWN OF KILDARE - 29014
TOWN OF KINGSTON - 29016
TOWN OF LEMONWEIR - 29018
TOWN OF LINDINA - 29020
TOWN OF LISBON - 29022
TOWN OF LYNDON - 29024
TOWN OF MARION - 29026
TOWN OF NECEDAH - 29028
TOWN OF ORANGE - 29030
TOWN OF PLYMOUTH - 29032
TOWN OF SEVEN MILE CREEK - 29034
TOWN OF SUMMIT - 29036
TOWN OF WONEWOC - 29038
VILLAGE OF CAMP DOUGLAS - 29111
VILLAGE OF HUSTLER - 29136

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
Sequoia Voting - Optech Insight
None
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

541

Exhibit 5 Page 17 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
JUNEAU COUNTY - 29
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KENOSHA COUNTY - 30
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
KEWAUNEE COUNTY - 31
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32

VILLAGE OF LYNDON STATION - 29146
VILLAGE OF NECEDAH - 29161
VILLAGE OF UNION CENTER - 29186
VILLAGE OF WONEWOC - 29191
CITY OF KENOSHA - 30241
TOWN OF BRIGHTON - 30002
TOWN OF PARIS - 30006
TOWN OF RANDALL - 30010
TOWN OF SALEM - 30012
TOWN OF SOMERS - 30014
TOWN OF WHEATLAND - 30016
VILLAGE OF BRISTOL - 30104
VILLAGE OF PADDOCK LAKE - 30171
VILLAGE OF PLEASANT PRAIRIE - 30174
VILLAGE OF SILVER LAKE - 30181
VILLAGE OF SOMERS - 30182
VILLAGE OF TWIN LAKES - 30186
CITY OF ALGOMA - 31201
CITY OF KEWAUNEE - 31241
TOWN OF AHNAPEE - 31002
TOWN OF CARLTON - 31004
TOWN OF CASCO - 31006
TOWN OF FRANKLIN - 31008
TOWN OF LINCOLN - 31010
TOWN OF LUXEMBURG - 31012
TOWN OF MONTPELIER - 31014
TOWN OF PIERCE - 31016
TOWN OF RED RIVER - 31018
TOWN OF WEST KEWAUNEE - 31020
VILLAGE OF CASCO - 31111
VILLAGE OF LUXEMBURG - 31146
CITY OF LA CROSSE - 32246
CITY OF ONALASKA - 32265
TOWN OF BANGOR - 32002
TOWN OF BARRE - 32004
TOWN OF BURNS - 32006
TOWN OF CAMPBELL - 32008
TOWN OF FARMINGTON - 32010
TOWN OF GREENFIELD - 32012
TOWN OF HAMILTON - 32014
TOWN OF HOLLAND - 32016
TOWN OF MEDARY - 32018
TOWN OF ONALASKA - 32020
TOWN OF SHELBY - 32022
TOWN OF WASHINGTON - 32024

None
Dominion Voting - ImageCast Evolution (ICE)
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

542

Exhibit 5 Page 18 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LA CROSSE COUNTY - 32
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LAFAYETTE COUNTY - 33
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34

VILLAGE OF BANGOR - 32106
VILLAGE OF HOLMEN - 32136
VILLAGE OF ROCKLAND - 32176
VILLAGE OF WEST SALEM - 32191
CITY OF DARLINGTON - 33216
CITY OF SHULLSBURG - 33281
TOWN OF ARGYLE - 33002
TOWN OF BELMONT - 33004
TOWN OF BENTON - 33006
TOWN OF BLANCHARD - 33008
TOWN OF DARLINGTON - 33010
TOWN OF ELK GROVE - 33012
TOWN OF FAYETTE - 33014
TOWN OF GRATIOT - 33016
TOWN OF KENDALL - 33018
TOWN OF LAMONT - 33020
TOWN OF MONTICELLO - 33022
TOWN OF NEW DIGGINGS - 33024
TOWN OF SEYMOUR - 33026
TOWN OF SHULLSBURG - 33028
TOWN OF WAYNE - 33030
TOWN OF WHITE OAK SPRINGS - 33032
TOWN OF WILLOW SPRINGS - 33034
TOWN OF WIOTA - 33036
VILLAGE OF ARGYLE - 33101
VILLAGE OF BELMONT - 33106
VILLAGE OF BENTON - 33107
VILLAGE OF BLANCHARDVILLE - MAIN - 33108
VILLAGE OF GRATIOT - 33131
VILLAGE OF SOUTH WAYNE - 33181
CITY OF ANTIGO - 34201
TOWN OF ACKLEY - 34002
TOWN OF AINSWORTH - 34004
TOWN OF ANTIGO - 34006
TOWN OF ELCHO - 34008
TOWN OF EVERGREEN - 34010
TOWN OF LANGLADE - 34012
TOWN OF NEVA - 34014
TOWN OF NORWOOD - 34016
TOWN OF PARRISH - 34018
TOWN OF PECK - 34020
TOWN OF POLAR - 34022
TOWN OF PRICE - 34024
TOWN OF ROLLING - 34026
TOWN OF SUMMIT - 34028

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

543

Exhibit 5 Page 19 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LANGLADE COUNTY - 34
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
LINCOLN COUNTY - 35
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36

TOWN OF UPHAM - 34030
TOWN OF VILAS - 34032
TOWN OF WOLF RIVER - 34034
VILLAGE OF WHITE LAKE - 34191
CITY OF MERRILL - 35251
CITY OF TOMAHAWK - 35286
TOWN OF BIRCH - 35002
TOWN OF BRADLEY - 35004
TOWN OF CORNING - 35006
TOWN OF HARDING - 35008
TOWN OF HARRISON - 35010
TOWN OF KING - 35012
TOWN OF MERRILL - 35014
TOWN OF PINE RIVER - 35016
TOWN OF ROCK FALLS - 35018
TOWN OF RUSSELL - 35020
TOWN OF SCHLEY - 35022
TOWN OF SCOTT - 35024
TOWN OF SKANAWAN - 35026
TOWN OF SOMO - 35028
TOWN OF TOMAHAWK - 35030
TOWN OF WILSON - 35032
CITY OF KIEL - MAIN - 36241
CITY OF MANITOWOC - 36251
CITY OF TWO RIVERS - 36286
TOWN OF CATO - 36002
TOWN OF CENTERVILLE - 36004
TOWN OF COOPERSTOWN - 36006
TOWN OF EATON - 36008
TOWN OF FRANKLIN - 36010
TOWN OF GIBSON - 36012
TOWN OF KOSSUTH - 36014
TOWN OF LIBERTY - 36016
TOWN OF MANITOWOC - 36018
TOWN OF MANITOWOC RAPIDS - 36020
TOWN OF MAPLE GROVE - 36022
TOWN OF MEEME - 36024
TOWN OF MISHICOT - 36026
TOWN OF NEWTON - 36028
TOWN OF ROCKLAND - 36030
TOWN OF SCHLESWIG - 36032
TOWN OF TWO CREEKS - 36034
TOWN OF TWO RIVERS - 36036
VILLAGE OF CLEVELAND - 36112
VILLAGE OF FRANCIS CREEK - 36126

None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S M100
ES&S DS200
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

544

Exhibit 5 Page 20 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MANITOWOC COUNTY - 36
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37

VILLAGE OF KELLNERSVILLE - 36132
VILLAGE OF MARIBEL - 36147
VILLAGE OF MISHICOT - 36151
VILLAGE OF REEDSVILLE - 36176
VILLAGE OF ST. NAZIANZ - 36181
VILLAGE OF VALDERS - 36186
VILLAGE OF WHITELAW - 36191
CITY OF MOSINEE - 37251
CITY OF SCHOFIELD - 37281
CITY OF WAUSAU - 37291
TOWN OF BERGEN - 37002
TOWN OF BERLIN - 37004
TOWN OF BERN - 37006
TOWN OF BEVENT - 37008
TOWN OF BRIGHTON - 37010
TOWN OF CASSEL - 37012
TOWN OF CLEVELAND - 37014
TOWN OF DAY - 37016
TOWN OF EASTON - 37018
TOWN OF EAU PLEINE - 37020
TOWN OF ELDERON - 37022
TOWN OF EMMET - 37024
TOWN OF FRANKFORT - 37026
TOWN OF FRANZEN - 37028
TOWN OF GREEN VALLEY - 37030
TOWN OF GUENTHER - 37032
TOWN OF HALSEY - 37034
TOWN OF HAMBURG - 37036
TOWN OF HARRISON - 37038
TOWN OF HEWITT - 37040
TOWN OF HOLTON - 37042
TOWN OF HULL - 37044
TOWN OF JOHNSON - 37046
TOWN OF KNOWLTON - 37048
TOWN OF MAINE - 37052
TOWN OF MARATHON - 37054
TOWN OF MCMILLAN - 37056
TOWN OF MOSINEE - 37058
TOWN OF NORRIE - 37060
TOWN OF PLOVER - 37062
TOWN OF REID - 37064
TOWN OF RIB FALLS - 37066
TOWN OF RIB MOUNTAIN - 37068
TOWN OF RIETBROCK - 37070
TOWN OF RINGLE - 37072

ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S M100
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

545

Exhibit 5 Page 21 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARATHON COUNTY - 37
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARINETTE COUNTY - 38
MARQUETTE COUNTY - 39

TOWN OF SPENCER - 37074
TOWN OF STETTIN - 37076
TOWN OF TEXAS - 37078
TOWN OF WAUSAU - 37080
TOWN OF WESTON - 37082
TOWN OF WIEN - 37084
VILLAGE OF ATHENS - 37102
VILLAGE OF BROKAW - 37106
VILLAGE OF EDGAR - 37121
VILLAGE OF ELDERON - 37122
VILLAGE OF FENWOOD - 37126
VILLAGE OF HATLEY - 37136
VILLAGE OF KRONENWETTER - 37145
VILLAGE OF MARATHON CITY - 37151
VILLAGE OF ROTHSCHILD - 37176
VILLAGE OF SPENCER - 37181
VILLAGE OF STRATFORD - 37182
VILLAGE OF UNITY - MAIN - 37186
VILLAGE OF WESTON - 37192
CITY OF MARINETTE - 38251
CITY OF NIAGARA - 38261
CITY OF PESHTIGO - 38271
TOWN OF AMBERG - 38002
TOWN OF ATHELSTANE - 38004
TOWN OF BEAVER - 38006
TOWN OF BEECHER - 38008
TOWN OF DUNBAR - 38010
TOWN OF GOODMAN - 38012
TOWN OF GROVER - 38014
TOWN OF LAKE - 38016
TOWN OF MIDDLE INLET - 38018
TOWN OF NIAGARA - 38020
TOWN OF PEMBINE - 38022
TOWN OF PESHTIGO - 38024
TOWN OF PORTERFIELD - 38026
TOWN OF POUND - 38028
TOWN OF SILVER CLIFF - 38030
TOWN OF STEPHENSON - 38032
TOWN OF WAGNER - 38034
TOWN OF WAUSAUKEE - 38036
VILLAGE OF COLEMAN - 38111
VILLAGE OF CRIVITZ - 38121
VILLAGE OF POUND - 38171
VILLAGE OF WAUSAUKEE - 38191
CITY OF MONTELLO - 39251

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

546

Exhibit 5 Page 22 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MARQUETTE COUNTY - 39
MENOMINEE COUNTY - 40
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MILWAUKEE COUNTY - 41
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42

TOWN OF BUFFALO - 39002
TOWN OF CRYSTAL LAKE - 39004
TOWN OF DOUGLAS - 39006
TOWN OF HARRIS - 39008
TOWN OF MECAN - 39010
TOWN OF MONTELLO - 39012
TOWN OF MOUNDVILLE - 39014
TOWN OF NESHKORO - 39016
TOWN OF NEWTON - 39018
TOWN OF OXFORD - 39020
TOWN OF PACKWAUKEE - 39022
TOWN OF SHIELDS - 39024
TOWN OF SPRINGFIELD - 39026
TOWN OF WESTFIELD - 39028
VILLAGE OF ENDEAVOR - 39121
VILLAGE OF NESHKORO - 39161
VILLAGE OF OXFORD - 39165
VILLAGE OF WESTFIELD - 39191
TOWN OF MENOMINEE - 40001
CITY OF CUDAHY - 41211
CITY OF FRANKLIN - 41226
CITY OF GLENDALE - 41231
CITY OF GREENFIELD - 41236
CITY OF MILWAUKEE - MAIN - 41251
CITY OF OAK CREEK - 41265
CITY OF SOUTH MILWAUKEE - 41282
CITY OF ST. FRANCIS - 41281
CITY OF WAUWATOSA - 41291
CITY OF WEST ALLIS - 41292
VILLAGE OF BAYSIDE - MAIN - 41106
VILLAGE OF BROWN DEER - 41107
VILLAGE OF FOX POINT - 41126
VILLAGE OF GREENDALE - 41131
VILLAGE OF HALES CORNERS - 41136
VILLAGE OF RIVER HILLS - 41176
VILLAGE OF SHOREWOOD - 41181
VILLAGE OF WEST MILWAUKEE - 41191
VILLAGE OF WHITEFISH BAY - 41192
CITY OF SPARTA - 42281
CITY OF TOMAH - 42286
TOWN OF ADRIAN - 42002
TOWN OF ANGELO - 42004
TOWN OF BYRON - 42006
TOWN OF CLIFTON - 42008
TOWN OF GLENDALE - 42010

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200/ES&S DS850
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK/ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK/ES&S ExpressVote
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

547

Exhibit 5 Page 23 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
MONROE COUNTY - 42
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43

TOWN OF GRANT - 42012
TOWN OF GREENFIELD - 42014
TOWN OF JEFFERSON - 42016
TOWN OF LA GRANGE - 42020
TOWN OF LAFAYETTE - 42018
TOWN OF LEON - 42022
TOWN OF LINCOLN - 42024
TOWN OF LITTLE FALLS - 42026
TOWN OF NEW LYME - 42028
TOWN OF OAKDALE - 42030
TOWN OF PORTLAND - 42032
TOWN OF RIDGEVILLE - 42034
TOWN OF SCOTT - 42036
TOWN OF SHELDON - 42038
TOWN OF SPARTA - 42040
TOWN OF TOMAH - 42042
TOWN OF WELLINGTON - 42044
TOWN OF WELLS - 42046
TOWN OF WILTON - 42048
VILLAGE OF CASHTON - 42111
VILLAGE OF KENDALL - 42141
VILLAGE OF MELVINA - 42151
VILLAGE OF NORWALK - 42161
VILLAGE OF OAKDALE - 42165
VILLAGE OF WARRENS - 42185
VILLAGE OF WILTON - 42191
VILLAGE OF WYEVILLE - 42192
CITY OF GILLETT - 43231
CITY OF OCONTO - 43265
CITY OF OCONTO FALLS - 43266
TOWN OF ABRAMS - 43002
TOWN OF BAGLEY - 43006
TOWN OF BRAZEAU - 43008
TOWN OF BREED - 43010
TOWN OF CHASE - 43012
TOWN OF DOTY - 43014
TOWN OF GILLETT - 43016
TOWN OF HOW - 43018
TOWN OF LAKEWOOD - 43019
TOWN OF LENA - 43020
TOWN OF LITTLE RIVER - 43022
TOWN OF LITTLE SUAMICO - 43024
TOWN OF MAPLE VALLEY - 43026
TOWN OF MORGAN - 43028
TOWN OF MOUNTAIN - 43029

None
None
None
Sequoia Voting - Optech Insight
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

548

Exhibit 5 Page 24 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
OCONTO COUNTY - 43
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
ONEIDA COUNTY - 44
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45

TOWN OF OCONTO - 43030
TOWN OF OCONTO FALLS - 43032
TOWN OF PENSAUKEE - 43034
TOWN OF RIVERVIEW - 43036
TOWN OF SPRUCE - 43038
TOWN OF STILES - 43040
TOWN OF TOWNSEND - 43042
TOWN OF UNDERHILL - 43044
VILLAGE OF LENA - 43146
VILLAGE OF SURING - 43181
CITY OF RHINELANDER - 44276
TOWN OF CASSIAN - 44002
TOWN OF CRESCENT - 44004
TOWN OF ENTERPRISE - 44006
TOWN OF HAZELHURST - 44008
TOWN OF LAKE TOMAHAWK - 44010
TOWN OF LITTLE RICE - 44012
TOWN OF LYNNE - 44014
TOWN OF MINOCQUA - 44016
TOWN OF MONICO - 44018
TOWN OF NEWBOLD - 44020
TOWN OF NOKOMIS - 44022
TOWN OF PELICAN - 44024
TOWN OF PIEHL - 44026
TOWN OF PINE LAKE - 44028
TOWN OF SCHOEPKE - 44030
TOWN OF STELLA - 44032
TOWN OF SUGAR CAMP - 44034
TOWN OF THREE LAKES - 44036
TOWN OF WOODBORO - 44038
TOWN OF WOODRUFF - 44040
CITY OF APPLETON - MAIN - 45201
CITY OF KAUKAUNA - MAIN - 45241
CITY OF SEYMOUR - 45281
TOWN OF BLACK CREEK - 45002
TOWN OF BOVINA - 45004
TOWN OF BUCHANAN - 45006
TOWN OF CENTER - 45008
TOWN OF CICERO - 45010
TOWN OF DALE - 45012
TOWN OF DEER CREEK - 45014
TOWN OF ELLINGTON - 45016
TOWN OF FREEDOM - 45018
TOWN OF GRAND CHUTE - 45020
TOWN OF GREENVILLE - 45022

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

549

Exhibit 5 Page 25 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OUTAGAMIE COUNTY - 45
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
OZAUKEE COUNTY - 46
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PEPIN COUNTY - 47
PIERCE COUNTY - 48

TOWN OF HORTONIA - 45024
TOWN OF KAUKAUNA - 45026
TOWN OF LIBERTY - 45028
TOWN OF MAINE - 45030
TOWN OF MAPLE CREEK - 45032
TOWN OF ONEIDA - 45034
TOWN OF OSBORN - 45036
TOWN OF SEYMOUR - 45038
TOWN OF VANDENBROEK - 45040
VILLAGE OF BEAR CREEK - 45106
VILLAGE OF BLACK CREEK - 45107
VILLAGE OF COMBINED LOCKS - 45111
VILLAGE OF HORTONVILLE - 45136
VILLAGE OF KIMBERLY - 45141
VILLAGE OF LITTLE CHUTE - 45146
VILLAGE OF NICHOLS - 45155
VILLAGE OF SHIOCTON - 45181
CITY OF CEDARBURG - 46211
CITY OF MEQUON - 46255
CITY OF PORT WASHINGTON - 46271
TOWN OF BELGIUM - 46002
TOWN OF CEDARBURG - 46004
TOWN OF FREDONIA - 46006
TOWN OF GRAFTON - 46008
TOWN OF PORT WASHINGTON - 46012
TOWN OF SAUKVILLE - 46014
VILLAGE OF BAYSIDE - 41106
VILLAGE OF BELGIUM - 46106
VILLAGE OF FREDONIA - 46126
VILLAGE OF GRAFTON - 46131
VILLAGE OF NEWBURG - 67161
VILLAGE OF SAUKVILLE - 46181
VILLAGE OF THIENSVILLE - 46186
CITY OF DURAND - 47216
TOWN OF ALBANY - 47002
TOWN OF DURAND - 47004
TOWN OF FRANKFORT - 47006
TOWN OF LIMA - 47008
TOWN OF PEPIN - 47010
TOWN OF STOCKHOLM - 47012
TOWN OF WATERVILLE - 47014
TOWN OF WAUBEEK - 47016
VILLAGE OF PEPIN - 47171
VILLAGE OF STOCKHOLM - 47181
CITY OF PRESCOTT - 48271

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote

550

Exhibit 5 Page 26 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
PIERCE COUNTY - 48
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49

CITY OF RIVER FALLS - MAIN - 48276
TOWN OF CLIFTON - 48002
TOWN OF DIAMOND BLUFF - 48004
TOWN OF EL PASO - 48008
TOWN OF ELLSWORTH - 48006
TOWN OF GILMAN - 48010
TOWN OF HARTLAND - 48012
TOWN OF ISABELLE - 48014
TOWN OF MAIDEN ROCK - 48016
TOWN OF MARTELL - 48018
TOWN OF OAK GROVE - 48020
TOWN OF RIVER FALLS - 48022
TOWN OF ROCK ELM - 48024
TOWN OF SALEM - 48026
TOWN OF SPRING LAKE - 48028
TOWN OF TRENTON - 48030
TOWN OF TRIMBELLE - 48032
TOWN OF UNION - 48034
VILLAGE OF BAY CITY - 48106
VILLAGE OF ELLSWORTH - 48121
VILLAGE OF ELMWOOD - 48122
VILLAGE OF MAIDEN ROCK - 48151
VILLAGE OF PLUM CITY - 48171
VILLAGE OF SPRING VALLEY - MAIN - 48181
CITY OF AMERY - 49201
CITY OF ST. CROIX FALLS - 49281
TOWN OF ALDEN - 49002
TOWN OF APPLE RIVER - 49004
TOWN OF BALSAM LAKE - 49006
TOWN OF BEAVER - 49008
TOWN OF BLACK BROOK - 49010
TOWN OF BONE LAKE - 49012
TOWN OF CLAM FALLS - 49014
TOWN OF CLAYTON - 49016
TOWN OF CLEAR LAKE - 49018
TOWN OF EUREKA - 49020
TOWN OF FARMINGTON - 49022
TOWN OF GARFIELD - 49024
TOWN OF GEORGETOWN - 49026
TOWN OF JOHNSTOWN - 49028
TOWN OF LAKETOWN - 49030
TOWN OF LINCOLN - 49032
TOWN OF LORAIN - 49034
TOWN OF LUCK - 49036
TOWN OF MCKINLEY - 49038

ES&S DS200
None
None
ES&S DS200
Sequoia Voting - Optech Insight
None
ES&S DS200
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
ES&S DS200
ES&S DS200
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None

ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

551

Exhibit 5 Page 27 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
POLK COUNTY - 49
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PORTAGE COUNTY - 50
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51

TOWN OF MILLTOWN - 49040
TOWN OF OSCEOLA - 49042
TOWN OF ST. CROIX FALLS - 49044
TOWN OF STERLING - 49046
TOWN OF WEST SWEDEN - 49048
VILLAGE OF BALSAM LAKE - 49106
VILLAGE OF CENTURIA - 49111
VILLAGE OF CLAYTON - 49112
VILLAGE OF CLEAR LAKE - 49113
VILLAGE OF DRESSER - 49116
VILLAGE OF FREDERIC - 49126
VILLAGE OF LUCK - 49146
VILLAGE OF MILLTOWN - 49151
VILLAGE OF OSCEOLA - 49165
CITY OF STEVENS POINT - 50281
TOWN OF ALBAN - 50002
TOWN OF ALMOND - 50004
TOWN OF AMHERST - 50006
TOWN OF BELMONT - 50008
TOWN OF BUENA VISTA - 50010
TOWN OF CARSON - 50012
TOWN OF DEWEY - 50014
TOWN OF EAU PLEINE - 50016
TOWN OF GRANT - 50018
TOWN OF HULL - 50020
TOWN OF LANARK - 50022
TOWN OF LINWOOD - 50024
TOWN OF NEW HOPE - 50026
TOWN OF PINE GROVE - 50028
TOWN OF PLOVER - 50030
TOWN OF SHARON - 50032
TOWN OF STOCKTON - 50034
VILLAGE OF ALMOND - 50101
VILLAGE OF AMHERST - 50102
VILLAGE OF AMHERST JUNCTION - 50103
VILLAGE OF JUNCTION CITY - 50141
VILLAGE OF NELSONVILLE - 50161
VILLAGE OF PARK RIDGE - 50171
VILLAGE OF PLOVER - 50173
VILLAGE OF ROSHOLT - 50176
VILLAGE OF WHITING - 50191
CITY OF PARK FALLS - 51271
CITY OF PHILLIPS - 51272
TOWN OF CATAWBA - 51002
TOWN OF EISENSTEIN - 51004

None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
ES&S M100
ES&S DS200
ES&S DS200
None
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
None
None
None
None
None
None
ES&S DS200
ES&S M100
ES&S M100
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)

552

Exhibit 5 Page 28 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
PRICE COUNTY - 51
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RACINE COUNTY - 52
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53

TOWN OF ELK - 51006
TOWN OF EMERY - 51008
TOWN OF FIFIELD - 51010
TOWN OF FLAMBEAU - 51012
TOWN OF GEORGETOWN - 51014
TOWN OF HACKETT - 51016
TOWN OF HARMONY - 51018
TOWN OF HILL - 51020
TOWN OF KENNAN - 51022
TOWN OF KNOX - 51024
TOWN OF LAKE - 51026
TOWN OF OGEMA - 51028
TOWN OF PRENTICE - 51030
TOWN OF SPIRIT - 51032
TOWN OF WORCESTER - 51034
VILLAGE OF CATAWBA - 51111
VILLAGE OF KENNAN - 51141
VILLAGE OF PRENTICE - 51171
CITY OF BURLINGTON - MAIN - 52206
CITY OF RACINE - 52276
TOWN OF BURLINGTON - 52002
TOWN OF DOVER - 52006
TOWN OF NORWAY - 52010
TOWN OF RAYMOND - 52012
TOWN OF WATERFORD - 52016
TOWN OF YORKVILLE - 52018
VILLAGE OF CALEDONIA - 52104
VILLAGE OF ELMWOOD PARK - 52121
VILLAGE OF MOUNT PLEASANT - 52151
VILLAGE OF NORTH BAY - 52161
VILLAGE OF ROCHESTER - 52176
VILLAGE OF STURTEVANT - 52181
VILLAGE OF UNION GROVE - 52186
VILLAGE OF WATERFORD - 52191
VILLAGE OF WIND POINT - 52192
VILLAGE OF YORKVILLE - 52194
CITY OF RICHLAND CENTER - 53276
TOWN OF AKAN - 53002
TOWN OF BLOOM - 53004
TOWN OF BUENA VISTA - 53006
TOWN OF DAYTON - 53008
TOWN OF EAGLE - 53010
TOWN OF FOREST - 53012
TOWN OF HENRIETTA - 53014
TOWN OF ITHACA - 53016

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

553

Exhibit 5 Page 29 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
RICHLAND COUNTY - 53
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
ROCK COUNTY - 54
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55

TOWN OF MARSHALL - 53018
TOWN OF ORION - 53020
TOWN OF RICHLAND - 53022
TOWN OF RICHWOOD - 53024
TOWN OF ROCKBRIDGE - 53026
TOWN OF SYLVAN - 53028
TOWN OF WESTFORD - 53030
TOWN OF WILLOW - 53032
VILLAGE OF BOAZ - 53106
VILLAGE OF CAZENOVIA - MAIN - 53111
VILLAGE OF LONE ROCK - 53146
VILLAGE OF VIOLA - MAIN - 53186
VILLAGE OF YUBA - 53196
CITY OF BELOIT - 54206
CITY OF EDGERTON - MAIN - 54221
CITY OF EVANSVILLE - 54222
CITY OF JANESVILLE - 54241
CITY OF MILTON - 54257
TOWN OF AVON - 54002
TOWN OF BELOIT - 54004
TOWN OF BRADFORD - 54006
TOWN OF CENTER - 54008
TOWN OF CLINTON - 54010
TOWN OF FULTON - 54012
TOWN OF HARMONY - 54014
TOWN OF JANESVILLE - 54016
TOWN OF JOHNSTOWN - 54018
TOWN OF LA PRAIRIE - 54020
TOWN OF LIMA - 54022
TOWN OF MAGNOLIA - 54024
TOWN OF MILTON - 54026
TOWN OF NEWARK - 54028
TOWN OF PLYMOUTH - 54030
TOWN OF PORTER - 54032
TOWN OF ROCK - 54034
TOWN OF SPRING VALLEY - 54036
TOWN OF TURTLE - 54038
TOWN OF UNION - 54040
VILLAGE OF CLINTON - 54111
VILLAGE OF FOOTVILLE - 54126
VILLAGE OF ORFORDVILLE - 54165
CITY OF LADYSMITH - 55246
TOWN OF ATLANTA - 55002
TOWN OF BIG BEND - 55004
TOWN OF BIG FALLS - 55006

None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

554

Exhibit 5 Page 30 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
RUSK COUNTY - 55
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57

TOWN OF CEDAR RAPIDS - 55008
TOWN OF DEWEY - 55010
TOWN OF FLAMBEAU - 55012
TOWN OF GRANT - 55014
TOWN OF GROW - 55016
TOWN OF HAWKINS - 55018
TOWN OF HUBBARD - 55020
TOWN OF LAWRENCE - 55022
TOWN OF MARSHALL - 55024
TOWN OF MURRY - 55026
TOWN OF RICHLAND - 55028
TOWN OF RUSK - 55030
TOWN OF SOUTH FORK - 55032
TOWN OF STRICKLAND - 55034
TOWN OF STUBBS - 55036
TOWN OF THORNAPPLE - 55038
TOWN OF TRUE - 55040
TOWN OF WASHINGTON - 55042
TOWN OF WILKINSON - 55044
TOWN OF WILLARD - 55046
TOWN OF WILSON - 55048
VILLAGE OF BRUCE - 55106
VILLAGE OF CONRATH - 55111
VILLAGE OF GLEN FLORA - 55131
VILLAGE OF HAWKINS - 55136
VILLAGE OF INGRAM - 55141
VILLAGE OF SHELDON - 55181
VILLAGE OF TONY - 55186
VILLAGE OF WEYERHAEUSER - 55191
CITY OF BARABOO - 57206
CITY OF REEDSBURG - 57276
TOWN OF BARABOO - 57002
TOWN OF BEAR CREEK - 57004
TOWN OF DELLONA - 57006
TOWN OF DELTON - 57008
TOWN OF EXCELSIOR - 57010
TOWN OF FAIRFIELD - 57012
TOWN OF FRANKLIN - 57014
TOWN OF FREEDOM - 57016
TOWN OF GREENFIELD - 57018
TOWN OF HONEY CREEK - 57020
TOWN OF IRONTON - 57022
TOWN OF LA VALLE - 57024
TOWN OF MERRIMAC - 57026
TOWN OF PRAIRIE DU SAC - 57028

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

555

Exhibit 5 Page 31 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAUK COUNTY - 57
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SAWYER COUNTY - 58
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59

TOWN OF REEDSBURG - 57030
TOWN OF SPRING GREEN - 57032
TOWN OF SUMPTER - 57034
TOWN OF TROY - 57036
TOWN OF WASHINGTON - 57038
TOWN OF WESTFIELD - 57040
TOWN OF WINFIELD - 57042
TOWN OF WOODLAND - 57044
VILLAGE OF IRONTON - 57141
VILLAGE OF LAKE DELTON - 57146
VILLAGE OF LAVALLE - 57147
VILLAGE OF LIME RIDGE - 57148
VILLAGE OF LOGANVILLE - 57149
VILLAGE OF MERRIMAC - 57151
VILLAGE OF NORTH FREEDOM - 57161
VILLAGE OF PLAIN - 57171
VILLAGE OF PRAIRIE DU SAC - 57172
VILLAGE OF ROCK SPRINGS - 57176
VILLAGE OF SAUK CITY - 57181
VILLAGE OF SPRING GREEN - 57182
VILLAGE OF WEST BARABOO - 57191
CITY OF HAYWARD - 58236
TOWN OF BASS LAKE - 58002
TOWN OF COUDERAY - 58004
TOWN OF DRAPER - 58006
TOWN OF EDGEWATER - 58008
TOWN OF HAYWARD - 58010
TOWN OF HUNTER - 58012
TOWN OF LENROOT - 58014
TOWN OF MEADOWBROOK - 58016
TOWN OF METEOR - 58018
TOWN OF OJIBWA - 58020
TOWN OF RADISSON - 58022
TOWN OF ROUND LAKE - 58024
TOWN OF SAND LAKE - 58026
TOWN OF SPIDER LAKE - 58028
TOWN OF WEIRGOR - 58030
TOWN OF WINTER - 58032
VILLAGE OF COUDERAY - 58111
VILLAGE OF EXELAND - 58121
VILLAGE OF RADISSON - 58176
VILLAGE OF WINTER - 58190
CITY OF SHAWANO - 59281
TOWN OF ALMON - 59002
TOWN OF ANGELICA - 59004

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
Sequoia Voting - Optech Insight
None
Dominion Voting - ImageCast Evolution (ICE)
None
None
None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

556

Exhibit 5 Page 32 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHAWANO COUNTY - 59
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60

TOWN OF ANIWA - 59006
TOWN OF BARTELME - 59008
TOWN OF BELLE PLAINE - 59010
TOWN OF BIRNAMWOOD - 59012
TOWN OF FAIRBANKS - 59014
TOWN OF GERMANIA - 59016
TOWN OF GRANT - 59018
TOWN OF GREEN VALLEY - 59020
TOWN OF HARTLAND - 59022
TOWN OF HERMAN - 59024
TOWN OF HUTCHINS - 59026
TOWN OF LESSOR - 59028
TOWN OF MAPLE GROVE - 59030
TOWN OF MORRIS - 59032
TOWN OF NAVARINO - 59034
TOWN OF PELLA - 59036
TOWN OF RED SPRINGS - 59038
TOWN OF RICHMOND - 59040
TOWN OF SENECA - 59042
TOWN OF WASHINGTON - 59044
TOWN OF WAUKECHON - 59046
TOWN OF WESCOTT - 59048
TOWN OF WITTENBERG - 59050
VILLAGE OF ANIWA - 59101
VILLAGE OF BIRNAMWOOD - MAIN - 59106
VILLAGE OF BONDUEL - 59107
VILLAGE OF BOWLER - 59108
VILLAGE OF CECIL - 59111
VILLAGE OF ELAND - 59121
VILLAGE OF GRESHAM - 59131
VILLAGE OF MATTOON - 59151
VILLAGE OF TIGERTON - 59186
VILLAGE OF WITTENBERG - 59191
CITY OF PLYMOUTH - 60271
CITY OF SHEBOYGAN - 60281
CITY OF SHEBOYGAN FALLS - 60282
TOWN OF GREENBUSH - 60002
TOWN OF HERMAN - 60004
TOWN OF HOLLAND - 60006
TOWN OF LIMA - 60008
TOWN OF LYNDON - 60010
TOWN OF MITCHELL - 60012
TOWN OF MOSEL - 60014
TOWN OF PLYMOUTH - 60016
TOWN OF RHINE - 60018

None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1

557

Exhibit 5 Page 33 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
SHEBOYGAN COUNTY - 60
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56

TOWN OF RUSSELL - 60020
TOWN OF SCOTT - 60022
TOWN OF SHEBOYGAN - 60024
TOWN OF SHEBOYGAN FALLS - 60026
TOWN OF SHERMAN - 60028
TOWN OF WILSON - 60030
VILLAGE OF ADELL - 60101
VILLAGE OF CASCADE - 60111
VILLAGE OF CEDAR GROVE - 60112
VILLAGE OF ELKHART LAKE - 60121
VILLAGE OF GLENBEULAH - 60131
VILLAGE OF HOWARDS GROVE - 60135
VILLAGE OF KOHLER - 60141
VILLAGE OF OOSTBURG - 60165
VILLAGE OF RANDOM LAKE - 60176
VILLAGE OF WALDO - 60191
CITY OF GLENWOOD CITY - 56231
CITY OF HUDSON - 56236
CITY OF NEW RICHMOND - 56261
TOWN OF BALDWIN - 56002
TOWN OF CADY - 56004
TOWN OF CYLON - 56006
TOWN OF EAU GALLE - 56008
TOWN OF EMERALD - 56010
TOWN OF ERIN PRAIRIE - 56012
TOWN OF FOREST - 56014
TOWN OF GLENWOOD - 56016
TOWN OF HAMMOND - 56018
TOWN OF HUDSON - 56020
TOWN OF KINNICKINNIC - 56022
TOWN OF PLEASANT VALLEY - 56024
TOWN OF RICHMOND - 56026
TOWN OF RUSH RIVER - 56028
TOWN OF SOMERSET - 56032
TOWN OF SPRINGFIELD - 56034
TOWN OF ST. JOSEPH - 56030
TOWN OF STANTON - 56036
TOWN OF STAR PRAIRIE - 56038
TOWN OF TROY - 56040
TOWN OF WARREN - 56042
VILLAGE OF BALDWIN - 56106
VILLAGE OF DEER PARK - 56116
VILLAGE OF HAMMOND - 56136
VILLAGE OF NORTH HUDSON - 56161
VILLAGE OF ROBERTS - 56176

ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ClearCount 2.0.1
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ClearAccess 2.0.1
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

558

Exhibit 5 Page 34 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
ST. CROIX COUNTY - 56
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TAYLOR COUNTY - 61
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62

VILLAGE OF SOMERSET - 56181
VILLAGE OF STAR PRAIRIE - 56182
VILLAGE OF WILSON - 56191
VILLAGE OF WOODVILLE - 56192
CITY OF MEDFORD - 61251
TOWN OF AURORA - 61002
TOWN OF BROWNING - 61004
TOWN OF CHELSEA - 61006
TOWN OF CLEVELAND - 61008
TOWN OF DEER CREEK - 61010
TOWN OF FORD - 61012
TOWN OF GOODRICH - 61014
TOWN OF GREENWOOD - 61016
TOWN OF GROVER - 61018
TOWN OF HAMMEL - 61020
TOWN OF HOLWAY - 61022
TOWN OF JUMP RIVER - 61024
TOWN OF LITTLE BLACK - 61026
TOWN OF MAPLEHURST - 61028
TOWN OF MCKINLEY - 61030
TOWN OF MEDFORD - 61032
TOWN OF MOLITOR - 61034
TOWN OF PERSHING - 61036
TOWN OF RIB LAKE - 61038
TOWN OF ROOSEVELT - 61040
TOWN OF TAFT - 61042
TOWN OF WESTBORO - 61044
VILLAGE OF GILMAN - 61131
VILLAGE OF LUBLIN - 61146
VILLAGE OF RIB LAKE - 61176
VILLAGE OF STETSONVILLE - 61181
CITY OF ARCADIA - 62201
CITY OF BLAIR - 62206
CITY OF GALESVILLE - 62231
CITY OF INDEPENDENCE - 62241
CITY OF OSSEO - 62265
CITY OF WHITEHALL - 62291
TOWN OF ALBION - 62002
TOWN OF ARCADIA - 62004
TOWN OF BURNSIDE - 62006
TOWN OF CALEDONIA - 62008
TOWN OF CHIMNEY ROCK - 62010
TOWN OF DODGE - 62012
TOWN OF ETTRICK - 62014
TOWN OF GALE - 62016

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S M100
None
None
None
None
None
None
None
None
None
None
None
None
ES&S M100
None
None
ES&S M100
None
None
ES&S M100
None
None
ES&S M100
None
None
ES&S M100
None
Dominion Voting - ImageCast Evolution (ICE)
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
ES&S iVotronic
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

559

Exhibit 5 Page 35 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
TREMPEALEAU COUNTY - 62
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VERNON COUNTY - 63
VILAS COUNTY - 64

TOWN OF HALE - 62018
TOWN OF LINCOLN - 62020
TOWN OF PIGEON - 62022
TOWN OF PRESTON - 62024
TOWN OF SUMNER - 62026
TOWN OF TREMPEALEAU - 62028
TOWN OF UNITY - 62030
VILLAGE OF ELEVA - 62121
VILLAGE OF ETTRICK - 62122
VILLAGE OF PIGEON FALLS - 62173
VILLAGE OF STRUM - 62181
VILLAGE OF TREMPEALEAU - 62186
CITY OF HILLSBORO - 63236
CITY OF VIROQUA - 63286
CITY OF WESTBY - 63291
TOWN OF BERGEN - 63002
TOWN OF CHRISTIANA - 63004
TOWN OF CLINTON - 63006
TOWN OF COON - 63008
TOWN OF FOREST - 63010
TOWN OF FRANKLIN - 63012
TOWN OF GENOA - 63014
TOWN OF GREENWOOD - 63016
TOWN OF HAMBURG - 63018
TOWN OF HARMONY - 63020
TOWN OF HILLSBORO - 63022
TOWN OF JEFFERSON - 63024
TOWN OF KICKAPOO - 63026
TOWN OF LIBERTY - 63028
TOWN OF STARK - 63030
TOWN OF STERLING - 63032
TOWN OF UNION - 63034
TOWN OF VIROQUA - 63036
TOWN OF WEBSTER - 63038
TOWN OF WHEATLAND - 63040
TOWN OF WHITESTOWN - 63042
VILLAGE OF CHASEBURG - 63111
VILLAGE OF COON VALLEY - 63112
VILLAGE OF DE SOTO - MAIN - 63116
VILLAGE OF GENOA - 63131
VILLAGE OF LA FARGE - 63146
VILLAGE OF ONTARIO - 63165
VILLAGE OF READSTOWN - 63176
VILLAGE OF STODDARD - 63181
CITY OF EAGLE RIVER - 64221

None
None
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)

560

Exhibit 5 Page 36 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
VILAS COUNTY - 64
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WALWORTH COUNTY - 65
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66

TOWN OF ARBOR VITAE - 64002
TOWN OF BOULDER JUNCTION - 64004
TOWN OF CLOVERLAND - 64006
TOWN OF CONOVER - 64008
TOWN OF LAC DU FLAMBEAU - 64010
TOWN OF LAND O-LAKES - 64012
TOWN OF LINCOLN - 64014
TOWN OF MANITOWISH WATERS - 64016
TOWN OF PHELPS - 64018
TOWN OF PLUM LAKE - 64020
TOWN OF PRESQUE ISLE - 64022
TOWN OF ST. GERMAIN - 64024
TOWN OF WASHINGTON - 64026
TOWN OF WINCHESTER - 64028
CITY OF DELAVAN - 65216
CITY OF ELKHORN - 65221
CITY OF LAKE GENEVA - 65246
CITY OF WHITEWATER - MAIN - 65291
TOWN OF BLOOMFIELD - 65002
TOWN OF DARIEN - 65004
TOWN OF DELAVAN - 65006
TOWN OF EAST TROY - 65008
TOWN OF GENEVA - 65010
TOWN OF LA GRANGE - 65014
TOWN OF LAFAYETTE - 65012
TOWN OF LINN - 65016
TOWN OF LYONS - 65018
TOWN OF RICHMOND - 65020
TOWN OF SHARON - 65022
TOWN OF SPRING PRAIRIE - 65024
TOWN OF SUGAR CREEK - 65026
TOWN OF TROY - 65028
TOWN OF WALWORTH - 65030
TOWN OF WHITEWATER - 65032
VILLAGE OF BLOOMFIELD - 65115
VILLAGE OF DARIEN - 65116
VILLAGE OF EAST TROY - 65121
VILLAGE OF FONTANA - 65126
VILLAGE OF GENOA CITY - MAIN - 65131
VILLAGE OF SHARON - 65181
VILLAGE OF WALWORTH - 65191
VILLAGE OF WILLIAMS BAY - 65192
CITY OF SHELL LAKE - 66282
CITY OF SPOONER - 66281
TOWN OF BARRONETT - 66002

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
None
Sequoia Voting - Optech Insight
None

Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

561

Exhibit 5 Page 37 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHBURN COUNTY - 66
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WASHINGTON COUNTY - 67
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68

TOWN OF BASHAW - 66004
TOWN OF BASS LAKE - 66006
TOWN OF BEAVER BROOK - 66008
TOWN OF BIRCHWOOD - 66010
TOWN OF BROOKLYN - 66012
TOWN OF CASEY - 66014
TOWN OF CHICOG - 66016
TOWN OF CRYSTAL - 66018
TOWN OF EVERGREEN - 66020
TOWN OF FROG CREEK - 66022
TOWN OF GULL LAKE - 66024
TOWN OF LONG LAKE - 66026
TOWN OF MADGE - 66028
TOWN OF MINONG - 66030
TOWN OF SARONA - 66032
TOWN OF SPOONER - 66034
TOWN OF SPRINGBROOK - 66036
TOWN OF STINNETT - 66038
TOWN OF STONE LAKE - 66040
TOWN OF TREGO - 66042
VILLAGE OF BIRCHWOOD - 66106
VILLAGE OF MINONG - 66151
CITY OF HARTFORD - MAIN - 67236
CITY OF WEST BEND - 67291
TOWN OF ADDISON - 67002
TOWN OF BARTON - 67004
TOWN OF ERIN - 67006
TOWN OF FARMINGTON - 67008
TOWN OF GERMANTOWN - 67010
TOWN OF HARTFORD - 67012
TOWN OF JACKSON - 67014
TOWN OF KEWASKUM - 67016
TOWN OF POLK - 67018
TOWN OF TRENTON - 67022
TOWN OF WAYNE - 67024
TOWN OF WEST BEND - 67026
VILLAGE OF GERMANTOWN - 67131
VILLAGE OF JACKSON - 67141
VILLAGE OF KEWASKUM - MAIN - 67142
VILLAGE OF NEWBURG - MAIN - 67161
VILLAGE OF RICHFIELD - 67166
VILLAGE OF SLINGER - 67181
CITY OF BROOKFIELD - 68206
CITY OF DELAFIELD - 68216
CITY OF MUSKEGO - 68251

None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote

562

Exhibit 5 Page 38 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUKESHA COUNTY - 68
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69

CITY OF NEW BERLIN - 68261
CITY OF OCONOMOWOC - 68265
CITY OF PEWAUKEE - 68270
CITY OF WAUKESHA - 68291
TOWN OF BROOKFIELD - 68002
TOWN OF DELAFIELD - 68004
TOWN OF EAGLE - 68006
TOWN OF GENESEE - 68008
TOWN OF LISBON - 68010
TOWN OF MERTON - 68014
TOWN OF MUKWONAGO - 68016
TOWN OF OCONOMOWOC - 68022
TOWN OF OTTAWA - 68024
TOWN OF VERNON - 68030
TOWN OF WAUKESHA - 68032
VILLAGE OF BIG BEND - 68106
VILLAGE OF BUTLER - 68107
VILLAGE OF CHENEQUA - 68111
VILLAGE OF DOUSMAN - 68116
VILLAGE OF EAGLE - 68121
VILLAGE OF ELM GROVE - 68122
VILLAGE OF HARTLAND - 68136
VILLAGE OF LAC LA BELLE - MAIN - 68146
VILLAGE OF LANNON - 68147
VILLAGE OF MENOMONEE FALLS - 68151
VILLAGE OF MERTON - 68152
VILLAGE OF MUKWONAGO - MAIN - 68153
VILLAGE OF NASHOTAH - 68158
VILLAGE OF NORTH PRAIRIE - 68161
VILLAGE OF OCONOMOWOC LAKE - 68166
VILLAGE OF PEWAUKEE - 68171
VILLAGE OF SUMMIT - 68172
VILLAGE OF SUSSEX - 68181
VILLAGE OF WALES - 68191
CITY OF CLINTONVILLE - 69211
CITY OF MANAWA - 69251
CITY OF MARION - MAIN - 69252
CITY OF NEW LONDON - MAIN - 69261
CITY OF WAUPACA - 69291
CITY OF WEYAUWEGA - 69292
TOWN OF BEAR CREEK - 69002
TOWN OF CALEDONIA - 69004
TOWN OF DAYTON - 69006
TOWN OF DUPONT - 69008
TOWN OF FARMINGTON - 69010

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
Dominion Voting - ImageCast Evolution (ICE)
None
Sequoia Voting - Optech Insight
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
None
None
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
None
Sequoia Voting - Optech Insight

ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
ES&S ExpressVote
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

563

Exhibit 5 Page 39 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUPACA COUNTY - 69
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70

TOWN OF FREMONT - 69012
TOWN OF HARRISON - 69014
TOWN OF HELVETIA - 69016
TOWN OF IOLA - 69018
TOWN OF LARRABEE - 69020
TOWN OF LEBANON - 69022
TOWN OF LIND - 69024
TOWN OF LITTLE WOLF - 69026
TOWN OF MATTESON - 69028
TOWN OF MUKWA - 69030
TOWN OF ROYALTON - 69032
TOWN OF SAINT LAWRENCE - 69034
TOWN OF SCANDINAVIA - 69036
TOWN OF UNION - 69038
TOWN OF WAUPACA - 69040
TOWN OF WEYAUWEGA - 69042
TOWN OF WYOMING - 69044
VILLAGE OF BIG FALLS - 69106
VILLAGE OF EMBARRASS - 69121
VILLAGE OF FREMONT - 69126
VILLAGE OF IOLA - 69141
VILLAGE OF OGDENSBURG - 69165
VILLAGE OF SCANDINAVIA - 69181
CITY OF WAUTOMA - 70291
TOWN OF AURORA - 70002
TOWN OF BLOOMFIELD - 70004
TOWN OF COLOMA - 70006
TOWN OF DAKOTA - 70008
TOWN OF DEERFIELD - 70010
TOWN OF HANCOCK - 70012
TOWN OF LEON - 70014
TOWN OF MARION - 70016
TOWN OF MOUNT MORRIS - 70018
TOWN OF OASIS - 70020
TOWN OF PLAINFIELD - 70022
TOWN OF POY SIPPI - 70024
TOWN OF RICHFORD - 70026
TOWN OF ROSE - 70028
TOWN OF SAXEVILLE - 70030
TOWN OF SPRINGWATER - 70032
TOWN OF WARREN - 70034
TOWN OF WAUTOMA - 70036
VILLAGE OF COLOMA - 70111
VILLAGE OF HANCOCK - 70136
VILLAGE OF LOHRVILLE - 70146

None
None
None
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
Sequoia Voting - Optech Insight
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
Sequoia Voting - Optech Insight
None
None
None
None
None
None
None
None
None
None
None
None
None

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system

564

Exhibit 5 Page 40 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WAUSHARA COUNTY - 70
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WINNEBAGO COUNTY - 71
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72

VILLAGE OF PLAINFIELD - 70171
VILLAGE OF REDGRANITE - 70176
VILLAGE OF WILD ROSE - 70191
CITY OF MENASHA - MAIN - 71251
CITY OF NEENAH - 71261
CITY OF OMRO - 71265
CITY OF OSHKOSH - 71266
TOWN OF ALGOMA - 71002
TOWN OF BLACK WOLF - 71004
TOWN OF CLAYTON - 71006
TOWN OF MENASHA - 71008
TOWN OF NEENAH - 71010
TOWN OF NEKIMI - 71012
TOWN OF NEPEUSKUN - 71014
TOWN OF OMRO - 71016
TOWN OF OSHKOSH - 71018
TOWN OF POYGAN - 71020
TOWN OF RUSHFORD - 71022
TOWN OF UTICA - 71024
TOWN OF VINLAND - 71026
TOWN OF WINCHESTER - 71028
TOWN OF WINNECONNE - 71030
TOWN OF WOLF RIVER - 71032
VILLAGE OF FOX CROSSING - 71121
VILLAGE OF WINNECONNE - 71191
CITY OF MARSHFIELD - MAIN - 72251
CITY OF NEKOOSA - 72261
CITY OF PITTSVILLE - 72271
CITY OF WISCONSIN RAPIDS - 72291
TOWN OF ARPIN - 72002
TOWN OF AUBURNDALE - 72004
TOWN OF CAMERON - 72006
TOWN OF CARY - 72008
TOWN OF CRANMOOR - 72010
TOWN OF DEXTER - 72012
TOWN OF GRAND RAPIDS - 72014
TOWN OF HANSEN - 72016
TOWN OF HILES - 72018
TOWN OF LINCOLN - 72020
TOWN OF MARSHFIELD - 72022
TOWN OF MILLADORE - 72024
TOWN OF PORT EDWARDS - 72026
TOWN OF REMINGTON - 72028
TOWN OF RICHFIELD - 72030
TOWN OF ROCK - 72032

None
None
None
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200

Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Sequoia Voting - AVC Edge with VeriVote Printer DRE system
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
Dominion Voting - ImageCast Evolution (ICE)
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

565

Exhibit 5 Page 41 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

County

Municipality

Optical/Digital Scan Tabulator (Vendor/Dealer-Model)

Accessible Voting Equipment Vendor/Dealer-Model

WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72
WOOD COUNTY - 72

TOWN OF RUDOLPH - 72034
TOWN OF SARATOGA - 72036
TOWN OF SENECA - 72038
TOWN OF SHERRY - 72040
TOWN OF SIGEL - 72042
TOWN OF WOOD - 72044
VILLAGE OF ARPIN - 72100
VILLAGE OF AUBURNDALE - 72101
VILLAGE OF BIRON - 72106
VILLAGE OF HEWITT - 72122
VILLAGE OF MILLADORE - MAIN - 72151
VILLAGE OF PORT EDWARDS - 72171
VILLAGE OF RUDOLPH - 72178
VILLAGE OF VESPER - 72186

ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
ES&S DS200
None
ES&S DS200
ES&S DS200
ES&S DS200

ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK
ES&S AutoMARK

566

Exhibit 5 Page 42 of 42 Document 9-5
Case 2:20-cv-01771-PP Filed 12/03/20

567

6 Page 1 of 6 Document 9-6
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

568

6 Page 2 of 6 Document 9-6
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

569

6 Page 3 of 6 Document 9-6
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

570

6 Page 4 of 6 Document 9-6
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

571

6 Page 5 of 6 Document 9-6
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

572

6 Page 6 of 6 Document 9-6
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 2 of 48

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONNA CURLING, ET AL.,
Plaintiffs,
vs.
BRAD RAFFENSPERGER,
ET AL.,
Defendants.

)
)
)
)
)
)
)
)
)
)

CIVIL ACTION
FILE NO. 1:17-cv-2989-AT

DECLARATION OF HARRI HURSTI
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the
foregoing is true and correct.
1.

My name is Harri Hursti. I am over the age of 21 and competent to

give this testimony. The facts stated in this declaration are based on my personal
knowledge, unless stated otherwise.
2.

My background and qualifications in voting system cybersecurity are

set forth in my December 16, 2019 declaration. (Doc. 680-1, pages 37 et seq). I
stand by everything in that declaration and in my August 21, 2020 declaration.
(Doc. 800-2).

1

573

7 Page 1 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 3 of 48

3.

I am also an expert in ballot scanning because of extensive

background in digital imaging prior by work researching election systems. In
addition, in 2005 I started an open source project for scanning and auditing paper
ballots from images. As a result, I am familiar with different scanner types, how
scanner settings and image processing features change the images, and how file
format choices affect the quality and accuracy of the ballots.
4.

I am engaged as an expert in this case by Coalition for Good

Governance.
5.

In developing this declaration and opinion, I visited Atlanta to observe

certain operations of the June 9, 2020 statewide primary, and the August 11 runoff.
During the June 9 election, I was an authorized poll watcher in some locations and
was a public observer in others. On August 11, I was authorized as an expert
inspecting and observing under the Coalition for Good Governance’s Rule 34
Inspection request in certain polling places and the Fulton County Election
Preparation Center. As I will explain below in this declaration, my extensive
experience in the area of voting system security and my observations of these
elections lead to additional conclusions beyond those in my December 16, 2019
declaration. Specifically:

2

574

7 Page 2 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 4 of 48

a) the scanner and tabulation software settings being employed to determine
which votes to count on hand marked paper ballots are likely causing
clearly intentioned votes not to be counted;
b) the voting system is being operated in Fulton County in a manner that

escalates the security risk to an extreme level; and
c) voters are not reviewing their BMD printed ballots, which causes BMD
generated results to be un-auditable due to the untrustworthy audit trail.
Polling Place Observations
6.

Election observation on Peachtree Christian Church. The ballot

marking devices were installed so that 4 out of 8 touchscreen devices were clearly
visible from the pollbook check in desk. Voter’s selections could be effortlessly
seen from over 50 ft away.
7.

Over period of about 45 minutes, I only observed one voter who

appeared to be studying the ballot after picking it up from the printer before casting
it in the scanner. When voters do not fully verify their ballot prior to casting, the
ballots cannot be considered a reliable auditable record.
8.

The scanner would reject some ballots and then accept them after they

were rotated to a different orientation. I noted that the scanner would vary in the
amount of time that it took to accept or reject a ballot. The delay varied between 3
3

575

7 Page 3 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 5 of 48

and 5 seconds from the moment the scanner takes the ballot until the scanner either
accepts the ballot or rejects it. This kind of behavior is normal on general purpose
operating systems multitasking between multiple applications, but a voting system
component should be running only a single application without outside
dependencies causing variable execution times.
9.

Further research is necessary to determine the cause of the unexpected

scanning delays. A system that is dedicated to performing one task repeatedly
should not have unexplained variation in processing time. As security researcher,

we are always suspicious about any unexpected variable delays, as those are
common telltale signs of many issues, including a possibility of unauthorized
code being executed. So, in my opinion changes of behaviors between
supposedly identical machines performing identical tasks should always be
investigated.
When ballots are the same and are produced by a ballot marking device,
there should be no time difference whatsoever in processing the bar codes.
Variations in time can be the result of many things - one of them is that the
scanner encounters an error reading the bar code and needs to utilize error
correcting algorithms to recover from that error. Further investigation is
4

576

7 Page 4 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 6 of 48

necessary to determine the root cause of these delays, the potential impact of the
error correcting algorithms if those are found to be the cause, and whether the
delay has any impact upon the vote.
10.

Election observation in Central Park Recreation Center. The Poll

place manager told me that no Dominion trained technician had reported on
location to help them that morning.
11.

The ballot marking devices were originally installed in a way that

voter privacy was not protected, as anyone could observe across the room how
people are voting on about 2/3 devices.
12.

The ballot scanner took between 4 and 6 seconds to accept the ballot.

I observed only one ballot being rejected.
13.

Generally, voters did not inspect the ballots after taking it from the

printer and casting it into the scanner.
14.

Election observation in Fanplex location. Samantha Whitley and

Harrison Thweatt were poll watchers at the Fanplex polling location. They
contacted me at approximately 9:10am about problems they were observing with
the operation of the BMDs and Poll Pads and asked me to come to help them

5

577

7 Page 5 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 7 of 48

understand the anomalies they were observing. I arrived at FanPlex at
approximately 9:30am.
15.

I observed that the ballot scanner located by a glass wall whereby

standing outside of the building observe the scanning, would take between 6 and 7
seconds to either accept or reject the ballot.
16.

For reasons unknown, on multiple machines, while voters were

attempting to vote, the ballot marking devices sometimes printed “test” ballots. I
was not able to take a picture of the ballot from the designated observation area,
but I overheard the poll worker by the scanner explaining the issue to a voter which
was sent back to the Ballot-Marking Device to pick up another ballot from the
printer tray. Test ballots are intended to be used to test the system but without
being counted by the system during an election. The ballot scanner in election
settings rejects test ballots, as the scanners at FanPlex did. This caused confusion
as the voters needed to return to the ballot-marking device to retrieve the actual
ballot. Some voters returned the test ballot into the printer tray, potentially
confusing the next voter. Had voters been reviewing the ballots at all before taking
them to the scanner, they would have noticed the “Test Ballot” text on the ballot. I
observed no voter really questioning a poll worker why a “Test” ballot was printed
in the first place.
6

578

7 Page 6 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 8 of 48

17.

Obviously, during the election day, the ballot marking device should

not be processing or printing any ballot other than the one the voter is voting.
While the cause of the improper printing of ballots should be examined, the fact
that this was happening at all is likely indicative of a wrong configuration given to
the BMD, which in my professional opinion raises another question: Why didn’t
the device print only test ballots? And how can the device change its behavior in
the middle of the election day? Is the incorrect configuration originating from the
Electronic Pollbook System? What are the implications for the reliability of the
printed ballot and the QR code being counted?
18.

Election observation Park Tavern. The scanner acceptance delay did

not vary as it had in previous locations and was consistently about 5 seconds from
the moment the scanner takes the ballot, to the moment the scanner either accepts
the ballot or rejects it. The variation between scanners at different locations is
concerning because these are identical physical devices and should not behave
differently while performing the identical task of scanning a ballot.
19.

The vast majority of voters at Park Tavern did not inspect the ballots

after taking them from the printer and before casting them in the scanner.

7

579

7 Page 7 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 9 of 48

Fulton Tabulation Center Operation-Election Night, August 11, 2020
20.

In Fulton County Election Preparation Center (“EPC”) on election

night I reviewed certain operations as authorized by Rule 34 inspection.
21.

I was permitted to view the operations of the upload of the memory

devices coming in from the precincts to the Dominion Election Management
System (“EMS”) server. The agreement with Fulton County was that I could
review only for a limited period of time; therefore, I did not review the entire
evening’s process. Also, Dominion employees asked me to move away from the
monitors containing the information and messages from the upload process and
error messages, limiting my ability to give a more detailed report with
documentation and photographs of the screens. However, my vantage point was
more than adequate to observe that system problems were recurring and the
Dominion technicians operating the system were struggling with the upload
process.
22.

It is my understanding the same EMS equipment and software had

been used in Fulton County’s June 9, 2020 primary election.
23.

It is my understanding that the Dominion technician (“Dominic”)

charged with operating the EMS server for Fulton County had been performing

8

580

7 Page 8 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 10 of 48

these duties at Fulton County for several months, including during the June 9
primary.
24.

During my August 11 visit, and a follow-up visit on August 17, I

observed that the EMS server was operated almost exclusively by Dominion
personnel, with little interaction with EPC management, even when problems were
encountered. In my conversations with Derrick Gilstrap and other Fulton County
Elections Department EPC personnel, they professed to have limited knowledge of
or control over the EMS server and its operations.
25.

Outsourcing the operation of the voting system components directly to

the voting system vendors’ personnel is highly unusual in my experience and of
grave concern from a security and conflict of interest perspective. Voting system
vendors’ personnel have a conflict of interest because they are not inclined to
report on, or address, defects in the voting systems. The dangers this poses is
aggravated by the absence of any trained County personnel to oversee and
supervise the process.
26.

In my professional opinion, the role played by Dominion personnel in

Fulton County, and other counties with similar arrangements, should be considered
an elevated risk factor when evaluating the security risks of Georgia’s voting
system.
9

581

7 Page 9 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 11 of 48

27.

Based on my observations on August 11 and August 17, Dell

computers running the EMS that is used to process Fulton county votes appeared
not to have been hardened.
28.

In essence, hardening is the process of securing a system by reducing

its surface of vulnerability, which is larger when a system performs more
functions; in principle it is to the reduce the general purpose system into a singlefunction system which is more secure than a multipurpose one. Reducing available
ways of attack typically includes changing default passwords, the removal of
unnecessary software, unnecessary usernames or logins, grant accounts and
programs with the minimum level of privileges needed for the tasks and create
separate accounts for privileged operations as needed, and the disabling or removal
of unnecessary services.
29.

Computers performing any sensitive and mission critical tasks such as

elections should unquestionably be hardened. Voting system are designated by the
Department of Homeland Security as part of the critical infrastructure and certainly
fall into the category of devices which should be hardened as the most fundamental
security measure. In my experience, it is unusual, and I find it unacceptable for an
EMS server not to have been hardened prior to installation.

10

582

Exhibit 7 Page 10 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 12 of 48

30.

The Operating System version in the Dominion Election Management

computer, which is positioned into the rack and by usage pattern appears to be the
main computer, is Windows 10 Pro 10.0.14393. This version is also known as the
Anniversary Update version 1607 and it was released August 2, 2016. Exhibit A is
a true and correct copy of a photograph that I took of this computer.
31.

When a voting system is certified by the EAC, the Operating System

is specifically defined, as Windows 10 Pro was for the Dominion 5.5-A system.
Unlike consumer computers, voting systems do not and should not receive
automatic “upgrades” to newer versions of the Operating System. without
undergoing tests for conflicts with the new operating system software.
32.

That computer and other computers used in Georgia’s system for vote

processing appear to have home/small business companion software packages
included. Exhibits B and C are true and correct copies of photographs that I took
of the computer located in the rack and the computer located closest to the rack on
the table to the right. The Start Menu shows a large number of game and
entertainment software icons. As stated before, one of the first procedures of
hardening is removal of all unwanted software, and removal of those game icons
and the associated games and installers alongside with all other software which is
not absolutely needed in the computer for election processing purposes would be
11

583

Exhibit 7 Page 11 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 13 of 48

one of the first and most basic steps in the hardening process. In my professional
opinion, independent inquiry should be promptly made of all 159 counties to
determine if the Dominion systems statewide share this major deficiency.
33.

Furthermore, when I asked the Dominion employee Dominic assigned

to the Fulton County election server operation about the origin of the Windows
operating system, he answered that he believed that “it has been provided by the
State.”
34.

Since Georgia’s Dominion system is new, it is a reasonable

assumption that all machines in the Fulton County election network had the same
version of Windows installed. However, not only the two computers displayed
different entertainment software icons, but additionally one of the machines in
Fulton’s group of election servers had an icon of computer game called
“Homescapes” which is made by Playrix Holding Ltd., founded by Dmitry and
Igor Bukham in Vologda, Russia. Attached as Exhibit C is a true and correct copy
of a photograph that I took of the Fulton voting system computer” Client 02”. The
icon for Homescapes is shown by the arrow on Exhibit C.
35.

The Homescapes game was released in August 2017, one year after

Fulton County’s operating system release. If the Homescapes game came with the
operating system it would be unusual, because at the time of the release of
12

584

Exhibit 7 Page 12 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 14 of 48

Homescapes, Microsoft had already released 3 major Microsoft Windows 10
update releases after build 14393 and before the release of that game. This calls
into question whether all Georgia Dominion system computers have the same
operating system version, or how the game has come to be having a presence in
Fulton’s Dominion voting system.
36.

Although this Dominion voting system is new to Georgia, the

Windows 10 operating system of at least the ‘main’ computer in the rack has not
been updated for 4 years and carries a wide range of well-known and publicly
disclosed vulnerabilities. At the time of this writing, The National Vulnerability
Database maintained by National Institute of Standards and Technology lists 3,177
vulnerabilities mentioning “Windows 10 Pro” and 203 vulnerabilities are
specifically mentioning “Windows 10 Pro 1607” which is the specific version
number of the build 14393 that Dominion uses.
37.

Even without internet connectivity, unhardened computers are at risk

when those are used to process removable media. It was clear that when Compact
Flash storage media containing the ballot images, audit logs and results from the
precinct scanners were connected to the server, the media was automounted by the
operating system. When the operating system is automounting a storage media, the
operating system starts automatically to interact with the device. The zero-day
13

585

Exhibit 7 Page 13 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 15 of 48

vulnerabilities exploiting this process has been recurringly discovered from all
operating systems, including Windows. Presence of automount calls also into
question presence of another setting which is always disabled in hardening process.
It is autorun, which automatically executes some content on the removable media.
While this is convenient for consumers, it poses extreme security risk.
38.

Based on my experience and mental impression observing the

Dominion technician’s activities, Fulton County’s EMS server management seems
to be an ad hoc operation with no formalized process. This was especially clear on
the manual processing of the memory cards storage devices coming in from the
precincts on election night and the repeated access of the operating system to
directly access filesystem, format USB devices, etc. This kind of operation in
naturally prone to human errors. I observed personnel calling on the floor asking if
all vote carrying compact flash cards had been delivered from the early voting
machines for processing, followed by later finding additional cards which had been
overlooked in apparent human error. Later, I heard again one technician calling on
the floor asking if all vote carrying compact flashes had been delivered. This
clearly demonstrates lack of inventory management which should be in place to
ensure, among other things, that no rogue storage devices would be inserted into
the computer. In response, 3 more compact flash cards were hand-delivered. Less
14

586

Exhibit 7 Page 14 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 16 of 48

than 5 minutes later, I heard one of the county workers say that additional card was
found and was delivered for processing. All these devices were trusted by printed
label only and no comparison to an inventory list of any kind was performed.
39.

In addition, operations were repeatedly performed directly on the

operating system. Election software has no visibility into the operations performed
directly on the operating system, and therefore those are not included in election
system event logging. Those activities can only be partially reconstructed from
operating system logs – and as these activities included copying election data files,
election software log may create false impression that the software is accessing the
same file over a period of time, while in reality the file could had been replaced
with another file with the same name by activities commanded to the operating
system. Therefore, any attempt to audit the election system operated in this manner
must include through analysis of all operating system logs, which complicates the
auditing process. Unless the system is configured properly to collect file system
auditing data is not complete. As the system appears not to be hardened, it is
unlikely that the operating system has been configured to collect auditing data.
40.

A human error when operating live election system from the operating

system can result in a catastrophic event destroying election data or even rendering
the system unusable. Human error is likely given the time pressure involved and,
15

587

Exhibit 7 Page 15 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 17 of 48

at least in Fulton County, no formal check lists or operating procedures were
followed to mitigate the human error risk. The best practice is to automate trivial
tasks to reduce risk of human error, increase the quality assurance of overall
operations and provide auditability and transparency by logging.
41.

Uploading of memory cards had already started before I arrived at

EPC. While one person was operating the upload process, the two other Dominion
employees were troubleshooting issues which seemed to be related to ballot images
uploads. I repeatedly observed error messages appearing on the screen of the EMS
server. I was not able to get picture of the errors on August 11th, I believe the error
was the same or similar that errors recurring August 17th as shown on Exhibit D
and discussed later in this declaration. Dominion employees were troubleshooting
the issue with ‘trial-and-error’ approach. As part of this effort they accessed
“Computer Management” application of Windows 10 and experimented with
trouble shooting the user account management feature. This demonstrates that they
had complete access to the computer. This means there are no meaningful access
separation and privileges and roles controls protecting the county’s primary
election servers. This also greatly amplifies the risk of catastrophic human error
and malicious program execution.

16

588

Exhibit 7 Page 16 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 18 of 48

42.

I overheard the Dominion technician’s conversation that they had

issues with file system structure and “need 5 files out of EMS server and paste.
Delete everything out of there and put it there.” To communicate the gravity of the
situation to each other they added “Troubleshooting in the live environment”.
These conversations increased the mental image that they were not familiar the
issue they were troubleshooting.
43.

After about 45 minutes of trying to solve the issue by instructions

received over the phone, the two Dominion employees’ (who had been
troubleshooting) behavior changed. The Dominion staff member walked behind
the server rack and made manual manipulations which could not be observed from
my vantage point. After that they moved with their personal laptops to a table
physically farther away from the election system and stopped trying different ways
to work around the issue in front of the server, and no longer talked continuously
with their remote help over phone.
44.

In the follow-up-calls I overheard them ask people on the other end of

the call to check different things, and they only went to a computer and appeared to
test something and subsequently take a picture of the computer screen with a
mobile phone and apparently send it to a remote location.

17

589

Exhibit 7 Page 17 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 19 of 48

45.

Based on my extensive experience, this all created a strong mental

impression that the troubleshooting effort was being done remotely over remote
access to key parts of the system. Additionally, new wireless access point with a
hidden SSID access point name appeared in the active Wi-Fi stations list that I was
monitoring, but it may have been co-incidental. Hidden SSIDs are used to obscure
presence of wireless networking from casual observers, although they do not
provide any real additional security.
46.

If in fact remote access was arranged and granted to the server, this

has gravely serious implications for the security of the new Dominion system.
Remote access, regardless how it is protected and organized is always a security
risk, but furthermore it is transfer of control out of the physical perimeters and
deny any ability to observe the activities.
47.

I also observed USB drives marked with the Centon DataStick Pro

Logo with no visible inventory control numbering system being taken repeatedly
from the EMS server rack to the Fulton managers’ offices and back. The
Dominion employee told me that the USB drives were being taken to the Election
Night Reporting Computer in another office. This action was repeated several
times during the time of my observation. Carrying generic unmarked and therefore
unidentifiable media out-of-view and back is a security risk – especially when the
18

590

Exhibit 7 Page 18 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 20 of 48

exact same type of devices was piled on the desk near the computer. During the
election night, the Dominion employees reached to storage box and introduced
more unmarked storage devices into the ongoing election process. I saw no effort
made to maintain a memory card inventory control document or chain of custody
accounting for memory cards from the precincts.
48.

I also visited the EPC on August 17. During that visit, the staff

working on uploading ballots for adjudication experienced an error which appeared
similar to the one on election night. This error was repeated with multitude of
ballots and at the time we left the location, the error appeared to be ignored, rather
that resolved. (EXHIBIT D - the error message and partial explanation of the error
being read by the operator.).
49.

The security risks outlined above – operating system risks, the failure

to harden the computers, performing operations directly on the operating systems,
lax control of memory cards, lack of procedures, and potential remote access, are
extreme and destroy the credibility of the tabulations and output of the reports
coming from a voting system.
50.

Such a risk could be overcome if the election were conducted using

hand marked paper ballots, with proper chain of custody controls. For elections
conducted with hand marked paper ballots, any malware or human error involved
19

591

Exhibit 7 Page 19 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 21 of 48

in the server security deficiencies or malfunctions could be overcome with a robust
audit of the hand marked paper ballots and in case of irregularities detected,
remedied by a recount. However, given that BMD ballots are computer marked,
and the ballots therefore unauditable for determining the result, no recovery from
system security lapses is possible for providing any confidence in the reported
outcomes.
Ballot Scanning and Tabulation of Vote Marks
51.

I have been asked to evaluate the performance and reliability of

Georgia’s Dominion precinct and central count scanners in the counting of votes
on hand marked paper ballots.
52.

On or about June 10th, Jeanne Dufort and Marilyn Marks called me to

seek my perspective on what Ms. Dufort said she observed while serving as a Vote
Review Panel member in Morgan County. Ms. Dufort told me that she observed
votes that were not counted as votes nor flagged by the Dominion adjudication
software.
53.

Because of the ongoing questions this raised related to the reliability

of the Dominion system tabulation of hand marked ballots, I was asked by
Coalition Plaintiffs to conduct technical analysis of the scanner and tabulation
accuracy. That analysis is still in its early stages.
20

592

Exhibit 7 Page 20 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 22 of 48

54.

Before addressing the particulars of my findings and research into the

accuracy of Dominion’s scanning and tabulation, I will address the basic process
by which an image on a voted hand marked paper ballot is processed by scanner
and tabulation software generally. It is important to understand that the Dominion
scanners are Canon off the shelf scanners and their embedded software were
designed for different applications than ballot scanning which is best conducted
with scanners specifically designed for detecting hand markings on paper ballots.
55.

Contrary of public belief, the scanner is not taking a picture of the

paper. The scanner is illuminating the paper with a number of narrow spectrum
color lights, typically 3, and then using software to produce an approximation what
the human eye would be likely to see if there would had been a single white widespectrum light source. This process takes place in partially within the scanner and
embedded software in the (commercial off the shelf) scanner and partially in the
driver software in the host computer. It is guided by number of settings and
configurations, some of which are stored in the scanner and some in the driver
software. The scanner sensors gather more information than will be saved into the
resulting file and another set of settings and configurations are used to drive that
part of the process. The scanners also produce anomalies which are automatically
removed from the images by the software. All these activities are performed
21

593

Exhibit 7 Page 21 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 23 of 48

outside of the Dominion election software, which is relying on the end product of
this process as the input.
56.

I began reviewing Dominion user manuals in the public domain to

further investigate the Dominion process.
57.

On August 14, I received 2 sample Fulton County August 11 ballots

of high-speed scanned ballot from Rhonda Martin, who stated that she obtained
them from Fulton County during Coalition Plaintiff’s discovery. The image
characteristics matched the file details I had seen on the screen in EPC. The image
is TIFF format, about 1700 by 2200 pixels with 1-bit color depth (= strictly black
or white pixels only) with 200 by 200 dots per square inch (“dpi”) resolution
resulting in files that are typically about 64 or 73 kilo bytes in size for August 11
ballots. With this resolution, the outer dimension of the oval voting target is about
30 by 25 pixels. The oval itself (that is, the oval line that encircles the voting
target) is about 2 pixels wide. The target area is about 450 pixels; the area of the
target a tight bounding box would be 750 pixels and the oval line encircling the
target is 165 pixels. In these images, the oval itself represented about 22% value in
the bounding box around the vote target oval.
58.

Important image processing decisions are done in scanner software

and before election software threshold values are applied to the image. These
22

594

Exhibit 7 Page 22 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 24 of 48

scanner settings are discussed in an excerpt Dominion’s manual for ICC operations
My understanding is that the excerpt of the Manual was received from Marilyn
Marks who stated that she obtained it from a Georgia election official in response
to an Open Records request. Attached as Exhibit E is page 9 of the manual. Box
number 2 on Exhibit E shows that the settings used are not neutral factory default
settings.
59.

Each pixel of the voters’ marks on a hand marked paper ballot will be

either in color or gray when the scanner originally measures the markings. The
scanner settings affect how image processing turns each pixel from color or gray to
either black or white in the image the voting software will later process. This
processing step is responsible for major image manipulation and information
reduction before the election software threshold values are calculated. This process
has a high risk of having an impact upon how a voter mark is interpreted by the
tabulation software when the information reduction erases markings from the
scanned image before the election software processes it.
60.

In my professional opinion, any decision by Georgia’s election

officials about adopting or changing election software threshold values is
premature before the scanner settings are thoroughly tested, optimized and locked.

23

595

Exhibit 7 Page 23 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 25 of 48

61.

The impact of the scanner settings is minimal for markings made with

a black felt pen but can be great for markings made with any color ballpoint pens.
To illustrate this, I have used standard color scanning settings and applied then
standard conversion from a scanned ballot vote target with widely used free and
open source image processing software “GNU Image Manipulation Program
version 2.10.18” EXHIBIT G shows the color image being converted with the
software’s default settings from color image to Black-and-White only. The red
color does not meet the internal conversion algorithm criteria for black, therefore it
gets erased to white instead.
62.

Dominion manual for ICC operations clearly show that the scanner

settings are changed from neutral factory default settings. EXHIBIT H shows how
these settings applied different ways alter how a blue marking is converted into
Black-and-White only image.
63.

The optimal scanner settings are different for each model of scanner

and each type of paper used to print ballots. Furthermore, because scanners are
inherently different, the manufacturers use hidden settings and algorithms to cause
neutral factory settings to produce similar baseline results across different makes
and models. This is well-studied topic; academic and image processing studies
published as early as 1979 discuss the brittleness of black-or-white images in
24

596

Exhibit 7 Page 24 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 26 of 48

conversion. Subsequently, significance for ballot counting has been discussed in
academic USENIX conference peer-reviewed papers.
64.

On the August 17th at Fulton County Election Preparation Center

Professor Richard DeMillo and I participated in a scan test of August 11 test
ballots using a Fulton County owned Dominion precinct scanner. Two different
ballot styles were tested, one with 4 races and one with 5 races. Attached as
Exhibits I and J show a sample ballots with test marks.
65.

A batch of 50 test ballots had been marked by Rhonda Martin with

varying types of marks and varying types of writing instruments that a voter might
use at home to mark an absentee ballot. Professor DeMillo and I participated in
marking a handful of ballots.
66.

Everything said here concerning the August 17 test is based on a very

preliminary analysis. The scanner took about 6 seconds to reject the ballots, and
one ballot was only acceptable “headfirst” while another ballot only “tail first.”
Ballot scanners are designed to read ballots “headfirst” or “tail first,” and front side
and backside and therefore there should not be ballots which are accepted only in
one orientation. I observed the ballots to make sure that both ballots had been
cleanly separated from the stub and I could not identify any defects of any kind on
the ballots.
25

597

Exhibit 7 Page 25 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 27 of 48

67.

There was a 15 second cycle from the time the precinct scanner

accepted a ballot to the time it was ready for the next ballot. Therefore, the
maximum theoretical capacity with the simple 5 race ballot is about 4 ballots per
minute if the next ballot is ready to be fed into the scanner as soon as the scanner
was ready to take it. In a real-world voting environment, it takes considerably
longer because voters move away from the scanner, the next voter must move in
and subsequently figure where to insert the ballot. The Dominion precinct scanner
that I observed was considerably slower than the ballot scanners I have tested over
the last 15 years. This was done with a simple ballot, and we did not test how
increase of the number of races or vote targets on the ballot would affect the
scanning speed and performance.
68.

Though my analysis is preliminary, this test reveals that a significant

percentage of filled ovals that would to a human clearly show voter’s intent failed
to register as a vote on the precinct count scanner.
69.

The necessary testing effort has barely begun at the time of this

writing, as only limited access to equipment has been made available. I have not
had access to the high-volume mail ballot scanner that is expected to process
millions of mail ballots in Georgia’s upcoming elections. However, initial results
suggest that significant revisions must be made in the scanning settings to avoid a
26

598

Exhibit 7 Page 26 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 28 of 48

widespread failure to count certain valid votes that are not marked as filled in
ovals. Without testing, it is impossible to know, if setting changes alone are
sufficient to cure the issue.
Scanned Ballot Tabulation Software Threshold Settings
70.

Georgia is employing a Dominion tabulation software tool called

“Dual Threshold Technology” for “marginal marks.” (See Exhibit M) The intent of
the tool is to detect voter marks that could be misinterpreted by the software and
flag them for review. While the goal is admirable, the method of achieving this
goal is quite flawed.
71.

While it is compelling from development cost point of view to use

commercial off the shelf COTS scanners and software, it requires additional steps
to ensure that the integration of the information flow is flawless. In this case, the
software provided by the scanner manufacturer and with settings and
configurations have great impact in how the images are created and what
information is removed from the images before the election software processes it.
In recent years, many defective scanner software packages have been found. These
software flaws include ‘image enhancement’ features which have remained
enabled even when the feature has been chosen to be disabled from the scanner
software provided by the manufacturer. An example of dangerous feature to keep
27

599

Exhibit 7 Page 27 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 29 of 48

enabled is ‘Punch Hole Removal’, intended to make images of documents removed
from notebook binders to look more aesthetically pleasing. The software can and
in many cases will misinterpret a voted oval as a punch hole and erase the vote
from the image file and to make this worse, the punch holes are expected to be
found only in certain places near the edge of the paper, and therefore it will erase
only votes from candidates whose targets are in those target zones.
72.

Decades ago, when computing and storage capacity were expensive

black-and-white image commonly meant 1-bit black-or-white pixel images like
used by Dominion system. As computer got faster and storage space cheaper
during the last 2-3 decades black-and-white image has become by default meaning
255 shades of gray grayscale images. For the purposes of reliable digitalization of
physical documents, grayscale image carries more information from the original
document for reliable processing and especially when colored markings are being
processed. With today’s technology, the difference in processing time and storage
prices between grayscale and 1-bit images has become completely meaningless,
and the benefits gained in accuracy are undeniable.
73.

I am aware that the Georgia Secretary of State’s office has stated that

Georgia threshold settings are national industry standards for ballot scanners
(Exhibit K). This is simply untrue. If, there were an industry standard for that, it
28

600

Exhibit 7 Page 28 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 30 of 48

would be part of EAC certification. There is no EAC standard for such threshold
settings. As mentioned before, the optimal settings are products of many elements.
The type of the scanner used, the scanner settings and configuration, the type of the
paper used, the type of the ink printer has used in printing the ballots, color dropout
settings, just to name few. Older scanner models, which were optical mark
recognitions scanners, used to be calibrated using calibration sheet – similar
process is needed to be established for digital imaging scanners used this way as
the ballot scanners.
74.

Furthermore, the software settings in Exhibit E box 2 show that the

software is instructed to ignore all markings in red color (“Color drop-out: Red”),
This clearly indicates that the software was expecting the oval to be printed in Red
and therefore it will be automatically removed from the calculation. The software
does not anticipate printed black ovals as used in Fulton County. Voters have
likely not been properly warned that any pen they use which ink contains high
concentration of red pigment particles is at risk of not counting, even if to the
human eye the ink looks very dark.
75.

I listened to the August 10 meeting of the State Board of Elections as

they approved a draft rule related to what constitutes a vote, incorporating the
following language:
29

601

Exhibit 7 Page 29 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 31 of 48

Ballot scanners that are used to tabulate optical scan ballots marked by
hand shall be set so that:
1. Detection of 20% or more fill-in of the target area surrounded by the
oval shall be considered a vote for the selection;
2. Detection of less than 10% fill-in of the target area surrounded by the
oval shall not be considered a vote for that selection;
3. Detection of at least 10% but less than 20% fill-in of the target area
surrounded by the oval shall flag the ballot for adjudication by a vote
review panel as set forth in O.C.G.A. 21-2-483(g). In reviewing any ballot
flagged for adjudication, the votes shall be counted if, in the opinion of the
vote review panel, the voter has clearly and without question indicated the candidate or
candidates and answers to questions for which such voter desires to vote.

76.

The settings discussed in the rule are completely subject to the

scanner settings. How the physical marking is translated into the digital image is
determined by those values and therefore setting the threshold values without at the
same time setting the scanner settings carries no value or meaning. If the ballots
will be continuing to be printed with black only, there is no logic in having any
drop-out colors.
77.

Before the State sets threshold standards for the Dominion system,

extensive testing is needed to establish optimal configuration and settings for each
step of the process. Also, the scanners are likely to have settings additional
configuration and settings which are not visible menus shown in the manual
excerpt. All those should be evaluated and tested for all types of scanners approved
for use in Georgia, including the precinct scanners
30

602

Exhibit 7 Page 30 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 32 of 48

78.

As temporary solution, after initial testing, the scanner settings and

configuration should be locked and then a low threshold values should be chosen.
All drop-out colors should be disabled. This will increase the number of ballots
chosen for human review and reduce the number of valid votes not being counted
as cast.
Logic and Accuracy Testing
79.

Ballot-Marking Device systems inherits the same well-documented

systemic security issues embedded in direct-recording electronic (DRE) voting
machine design. Such design flaws eventually are causing the demise of DRE
voting system across the country as it did in Georgia. In essence the Ballot
Marking Device is a general-purpose computer running a general-purpose
operating system with touchscreen that is utilized as a platform to run a software,
very similar to DRE by displaying a ballot to the voter and recording the voter’s
intents. The main difference is that instead of recording those internally digitally, it
prints out a ballot summary card of voter’s choices.
80.

Security properties of this approach would be positively different

from DREs if the ballot contained only human-readable information and all voters
are required to and were capable of verifying their choices from the paper ballot
summary. That of course is unrealistic.
31

603

Exhibit 7 Page 31 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 33 of 48

81.

When voter fails to inspect the paper ballot and significant portion of

the information is not in human readable from as a QR barcode, Ballot-Marking
Device based voting effectively inherits most of the negative and undesirable
security and reliability properties directly from DRE paradigm, and therefore
should be subject to the same testing requirements and mitigation strategies as
DREs.
82.

In response to repeating myriad of issues with DREs, which have been

attributed to causes from screen calibration issues to failures in ballot definition
configuration distribution, a robust Logic & Accuracy testing regulation have been
established. These root causes are present in BMDs and therefore should be
evaluated in the same way as DREs have been.
I received the Georgia Secretary of State’s manual “Logic and Accuracy
Procedures “Version 1.0 January 2020 from Rhonda Martin. Procedure described
in section D “Testing the BMD and Printer” is taking significant shortcuts,
presumably to cut the labor work required. (Section D is attached as Exhibit L)
These shortcuts significantly weaken the security and reliability posture of the
system and protections against already known systemic pitfalls, usability
predicaments and security inadequacies.

32

604

Exhibit 7 Page 32 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 34 of 48

CONCLUSIONS
83.

The scanner software and tabulation software settings and

configurations being employed to determine which votes to count on hand marked
paper ballots are likely causing clearly intentioned votes not to be counted as cast.
84.

The method of using 1-bit images and calculated relative darkness

values from such pre-reduced information to determine voter marks on ballots is
severely outdated and obsolete. It artificially and unnecessarily increases the
failure rates to recognize votes on hand-marked paper ballots. As a temporary
mitigation, optimal configurations and settings for all steps of the process should
be established after robust independent testing to mitigate the design flaw and
augment it with human assisted processes, but that will not cure the root cause of
the software deficiency which needs to be addressed.
85.

The voting system is being deployed, configured and operated in

Fulton County in a manner that escalates the security risk to an extreme level and
calls into question the accuracy of the election results. The lack of well-defined
process and compliance testing should be addressed immediately using
independent experts. The use and the supervision of the Dominion personnel
operating Fulton County’s Dominion Voting System should be evaluated.

33

605

Exhibit 7 Page 33 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 35 of 48

86.

Voters are not reviewing their BMD printed ballots before scanning

and casting them, which causes BMD-generated results to be un-auditable due to
the untrustworthy audit trail. Furthermore, because BMDs are inheriting known
fundamental architectural deficiencies from DREs, no mitigation and assurance
measures can be weakened, including but not limited to Logic and Accuracy
Testing procedures.

This 24th day of August 2020.
________________________
Harri Hursti

34

606

Exhibit 7 Page 34 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 36 of 48

EXHIBIT A:

35

607

Exhibit 7 Page 35 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 37 of 48

EXHIBIT B:

36

608

Exhibit 7 Page 36 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 39 of 48

EXHIBIT D:

38

610

Exhibit 7 Page 38 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 40 of 48

EXHIBIT E:

39

611

Exhibit 7 Page 39 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 41 of 48

EXHIBIT F:

40

612

Exhibit 7 Page 40 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 42 of 48

EXHIBIT G:

41

613

Exhibit 7 Page 41 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 43 of 48

EXHIBIT H:

42

614

Exhibit 7 Page 42 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 44 of 48

EXHIBIT I:

43

615

Exhibit 7 Page 43 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 45 of 48

EXHIBIT J:

44

616

Exhibit 7 Page 44 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 46 of 48

EXHIBIT K:

45

617

Exhibit 7 Page 45 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 47 of 48

EXHIBIT L:

46

618

Exhibit 7 Page 46 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

Case 1:17-cv-02989-AT Document 809-3 Filed 08/24/20 Page 48 of 48

EXHIBIT M:

47

619

Exhibit 7 Page 47 of 47 Document 9-7
Case 2:20-cv-01771-PP Filed 12/03/20

620

8 Page 1 of 5 Document 9-8
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

621

8 Page 2 of 5 Document 9-8
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

622

8 Page 3 of 5 Document 9-8
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

623

8 Page 4 of 5 Document 9-8
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

624

8 Page 5 of 5 Document 9-8
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

Declaration of Seth Keshel
Pursuant to 28 U.S.C Section 1746, I, Seth Keshel, make the following
declaration.
1. I am over the age of 21 years and I am under no legal disability, which
would prevent me from giving this declaration.
2. I am a trained data analyst with experience in multiple fields,
including service in the United States Army as a Captain of Military
Intelligence, with a one-year combat tour in Afghanistan.

My

experience includes political involvement requiring a knowledge of
election trends and voting behavior.
3. I reside at 233 Muir Hill Dr., Aledo, TX 76008.
4. My declaration highlights substantial deviance from statistical norms
and results regarding voting patterns in Wisconsin.
5. All 2020-related voting totals are taken from the Decision Desk HQ
unofficial tracker, are not certified, and are subject to change from the
time of the creation of this declaration.
6. Wisconsin has shown a steady decrease for support in Democratic
presidential nominees since Barack Obama won the state by 13.91%
in 2008. He won Wisconsin again in 2012, but only by a margin of
6.94%, and Republican Donald Trump won the state by 0.77% in 2016.
7. As part of an overall working-class voter shift, Wisconsin has moved
in the same manner as Pennsylvania, Ohio, Michigan, and Minnesota
– decreasing levels of support for Democratic nominees, and by
consequence of this shift, increasing levels of support for Republican

625

9 Page 1 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

nominees. This shift is captured in visual form in Exhibit A to this
declaration.
8. The following counties have cast more Democratic presidential votes
than cast for Obama in 2008, when he won the state by 13.91%:
a. Ozaukee – 26,515 Biden votes, a 31.5% increase from 2016, and
28.8% more than cast for Obama in 2008. President Trump has
increased his vote share by 11.3%, receiving 33,912 votes.
Democratic vote shifts were -6.9% in 2012 and +5.3% in 2016.
b. Dane – 260,157 Biden votes, a 19.5% increase from 2016, and
26.3% more than cast for Obama in 2008. President Trump has
increased his vote share by 10.5%, receiving 78,789 votes.
Democratic vote shifts were +4.9% in 2012 and +0.8% in 2016.
Dane County is home to the University of Wisconsin. President
Obama had record support, turnout, and enthusiasm among
college-age students and did not have to navigate pandemicrelated challenges to turn out these voters, which makes Biden’s
total extremely suspicious.
c. Waukesha – 103,867 Biden votes, a 31.1% increase from 2016,
and 21.7% more than cast for Obama in 2008. President Trump
has increased his vote share by 12.0%, receiving 159,633 votes.
Democratic vote shifts were -7.7% in 2012 and +0.6% in 2016.
d. St. Croix - 23,190 Biden votes, a 32.7% increase from 2016, and
9.5% more than cast for Obama in 2008. President Trump has
increased his vote share by 22.8%, receiving 32,190 votes.
Democratic vote shifts were -6.0% in 2012 and -12.2% in 2016,

626

9 Page 2 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

making such a sharp Democratic turnabout in the face of a
strong President Trump vote increase extremely suspect.
e. Washington - 26,647 Biden votes, a 27.8% increase from 2016,
and 3.6% more than cast for Obama in 2008. President Trump
has increased his vote share by 16.4%, receiving 60,235 votes.
Democratic vote shifts were -9.9% in 2012 and
-10.0% in 2016. A rebound of 27.8% for Democrats from two
consecutive cycles of heavy losses, particularly with President
Trump reconsolidating the Republican Party base and lost thirdparty voters, seems unlikely.
f. Bayfield - 6,155 Biden votes, a 24.3% increase from 2016, and
3.1% more than cast for Obama in 2008. President Trump has
increased his vote share by 12.0%, receiving 4,617 votes.
Democratic vote shifts were +1.0% in 2012 and
-18.9% in 2016.
9. Milwaukee County’s voter rolls shrank from 2016 to 2020, after losing
13.1% of President Obama’s Democratic vote total from 2012; however,
this year, Milwaukee County has surged in Democratic votes to nearly
equal Obama re-election levels with 317,251 votes, even as President
Trump has made an increase of 6.6% in votes. With a declining voter
roll, Milwaukee County was likely on track to cast less than 275,000
Democratic ballots this year. Combining these resurgent totals with
the transparency issues experienced on the early morning hours of
November 4, their current total of 317,251 is strikingly suspect.
10.

New York Times live vote reporting shows a dump of 168,541 votes

at 3:42:20 (a.m.) on November 4, 2020.
627

Of those votes, 143,378

9 Page 3 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

(85.07%) went for Biden, and just 25,163 (14.93%) went for Trump.
This dump was enough to flip the race with almost no transparency to
the viewing public. The live graph showing this vote dump (circled) is
attached as Exhibit D to this document.
11.

President Trump has vastly increased his vote share in the entirety

of Wisconsin, and also in the rural parts of the state, including the
counties he flipped from Democratic to Republican in 2016; however,
against the trends of the previous election, the Democrats have
increased at greater margins than Trump has, thereby erasing margin
gain, and allowing for suspicious vote totals in Milwaukee, Dane,
Ozaukee, Waukesha, St. Croix, and other counties with strikingly high
Democratic vote totals to overwhelm Trump’s totals.

A county

classification of Wisconsin is available in Exhibit B to this declaration,
and a full analysis of Wisconsin’s voter irregularities is available in
Exhibit C.

Seth Keshel
17 Nov. 2020
Aledo, Texas

628

9 Page 4 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

Improbable Voting Trend Reversals in Wisconsin
Seth Keshel, MBA
Executive Summary
Wisconsin is showing the same pattern of potential widespread fraud as observed in Pennsylvania, Michigan, Georgia, and North
Carolina. While Milwaukee County is focal for transparency and observation violations, including reporting statistically impossible vote counts
in the early morning hours away from scrutiny, Dane County has surged far past support totals for President Obama, despite expected difficulties
mobilizing student voters to polls. President Trump has reconsolidated the Republican base in suburban Milwaukee and far surpassed his 2016
support levels but has been limited in margin growth by historically improbable Democratic support in these strongholds, which defy years of
data in Wisconsin in which the Republican party surged as the Democratic Party plunged. Finally, in strong Trump counties showing a double
inversion cycle (one party up, the other down), particularly in rural and exurban Wisconsin, Trump’s totals are soaring, and against established
trends, Biden’s totals are at improbable levels of support despite lacking registration population growth.
The entire vote must be recanvassed and audited for both electronic vote fraud and mail/absentee fraud.
Opening
Since President Obama swept through the Midwest (“Rust Belt”) region in 2008, winning Pennsylvania by 10 percent, Michigan by
16 percent, and Wisconsin by 14 percent, the Democratic Party has declined steadily in all successive Presidential elections in not only share of
the vote, but in raw votes overall, without exception (pending the final results of the 2020 election). Pennsylvania is the only state mentioned in
this paragraph which registers voters by party, and it has trended three percentage points in favor of Republicans since the 2016 election. The
raw vote trends and results in these three states, plus Ohio and Minnesota, are pictured below.

These trends show the Democrats losing raw votes in every election since 2008, with the Republicans gaining in eight of 10 samples,
and with the margins moving in favor of Republicans each time. This is a product of limited or stagnant population growth in these states, which
given stable turnout numbers, means one party is typically going down if another is going up. In fast-growing states such as Florida, Texas, or
Arizona, it should be expected for both parties to make substantial gains in a “horse race” scenario.
Wisconsin
President Obama’s margin of victory in Wisconsin from 2008 fell from 13 91% to 6.94% in his reelection campaign, and that margin
moved 7.71% toward Republicans in 2016 as the working-class communities that historically favored Democrats moved to support thencandidate Donald Trump. Declining voting power from these working class counties beginning and 2012, and then from Milwaukee County in
2016 was an instrumental part of this shift, as was the substantial movement of northern Wisconsin toward the Republican Party. President
Trump was able to win Wisconsin in 2016 thanks to substantially decreased support for Democrats, and even overcame less than optimal support
from the Republican strongholds of southeastern Wisconsin.
The consistent characteristic in the shift in Wisconsin’s political landscape is the declining Democratic Party raw vote totals, and the
increasing Republican totals. Thus far, according to the Decision Desk unofficial vote tally, President Trump is substantially adding to his vote
totals in every Wisconsin County, while his opponent adds votes at a greater percentage, often in counties that have trended steadily away from
Democrats since at least 2008. The following counties, which have mostly lost Democratic votes since 2008, have now contributed more Biden
votes than Obama received in 2008, when he won the state by 13.91%. Green font represents growth in raw votes. Red font represents decrease
in raw votes.

629

9 Page 5 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

County

Rep ’08

Dem ’08 Rep ’12

Dem ’12 Rep ’16

Dem ’16 Rep ’20

Dem ’20 Dem Percentage of Obama 2008 Votes

Ozaukee 32,172

20,579

36,077

19,159

30,464

20,170

33,912

26,515

% Increase N/A

N/A

12.1%

(6.9%)

(15.6%)

5.3%

11.3%

31.5%

205,984

83,644

216,071

71,275

217,697

78,789

260,157

N/A

14.5%

4.9%

(14.8%)

0.8%

10.5%

19.5%

Waukesha 145,152

85,339

162,798

78,779

142,543

79,224

159,633

103,867

% Increase N/A

N/A

12.2%

(7.7%)

(12.4%)

0.6%

12.0%

31.1%

53,408

49,347

53,008

46,681

42,641

54,475

50,154

N/A

7.4%

(0.7%)

(5.4%)

(19.6%)

16.7%

17.6%

St. Croix 22,837

21,177

25,503

19,910

26,222

17,482

32,190

23,190

% Increase N/A

N/A

11.7%

(6.0%)

2.8%

(12.2%)

22.8%

32.7%

Wash’ton 47,729

25,719

54,765

23,166

51,740

20,852

60,235

26,647

% Increase N/A

N/A

14.7%

(9.9%)

(5.5%)

(10.0%)

16.4%

27.8%

5,972

3,603

6,033

4,124

4,953

4,617

6,155

N/A

7.1%

1.0%

14.5%

(18.9%)

12.0%

24.3%

128.8%

---Dane

73,065

% Increase N/A

126.3%

---121.7%

---Racine

45,954

% Increase N/A

117.6%

---109.5%

---103.6%

---Bayfield

3,365

% Increase N/A

103.1%

OTHER NOTABLE COUNTIES

County

Rep ’08

Dem ’08 Rep ’12

Dem ’12 Rep ’16

Dem ’16 Rep ’20

Dem ’20 Dem Percentage of Obama 2008 Votes

Milwaukee149,445

319,819

154,924

332,438

126,069

288,822

134,355

317,251

% Increase N/A

N/A

3.7%

3.9%

(18.6%)

(13.1%)

6.6%

9.8%

La Crosse 23,701

38,524

25,751

36,693

26,378

32,406

28,661

37,817

% Increase N/A

N/A

8.6%

(4.8%)

2.4%

(11.7%)

8.7%

16.7%

67,269

64,836

62,526

67,210

53,382

75,865

65,509

N/A

16.1%

(7.1%)

3.7%

(14.6%)

12.9%

22.7%

Eau Claire 20,959

33,146

23,256

30,666

23,331

27,340

25,339

31,617

% Increase N/A

N/A

11.0%

(7.5%)

0.3%

(10.8%)

8.6%

15.6%

99.2%

---98.5%

---Brown

55,854

% Increase N/A

97.4%

---95.6%

----

630

9 Page 6 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

Outagamie39,667

50,294

47,372

45,659

49,879

38,068

58,379

47,659

% Increase N/A

N/A

19.4%

(9.2%)

5.3%

(16.4%)

17.0%

25.2%

Walworth 25,485

24,117

29,006

22,552

28,863

18,710

33,844

22,783

% Increase N/A

N/A

13.8%

(6.7%)

(0.5%)

(17.0%)

17.3%

21.8%

50,529

30,517

49,219

31,493

39,339

37,133

46,649

N/A

11.5%

(2.6%)

3.2%

(20.1%)

17.9%

18.6%

Kenosha 31,609

45,836

34,977

44,867

36,037

35,799

44,972

42,191

% Increase N/A

N/A

10.6%

(2.1%)

3.0%

(20.2%)

24.8%

17.9%

Winnebago37,946

48,167

42,122

45,449

43,445

37,047

47,795

44,060

% Increase N/A

N/A

11.0%

(5.6%)

3.1%

(18.5%)

10.0%

18.9%

Sheboygan 30,801

30,395

34,072

27,918

32,514

23,000

37,624

27,109

% Increase N/A

N/A

10.6%

(8.1%)

(4.6%)

(17.6%)

15.7%

17.9%

Fond D.L. 28,164

23,463

30,355

22,379

31,022

17,387

35,754

20,588

% Increase N/A

N/A

7.8%

(4.6%)

2.1%

(22.3%)

15.3%

18.4%

Marathon 30,345

36,367

36,617

32,363

39,014

26,481

44,623

30,807

% Increase N/A

N/A

20.7%

(11.0%)

6.5%

(18.2%)

14.4%

16.3%

94.8%

---94.2%

---Rock

27,364

% Increase N/A

92.3%

---92.0%

---91.5%

---89.2%

---87.7%

---84.7%

Findings
The most suspicious counties are those that showed two consecutive elections trending upward for the Republican candidate and downward for
the Democratic candidate. These show a similar pattern to counties in Pennsylvania trending heavily Republican in registration, with a
significant increase for President Trump in raw votes in 2020, but a smaller than expected margin due to an unexpected sharp reversal of votes for
Biden in counties showing inverse trends for parties in recent elections. The only counties not showing two consecutive cycles of decline for
Democrats are Waukesha, Bayfield, and Milwaukee. Wisconsin had several Republican counties in 2016 with fewer votes for Trump and higher
third-party vote shares (hence 2,682 fewer votes for Trump than Romney), but based on 2020 returns to this point, that has been overcome in
every single county.
Dane County is clearly associated with a major university, with student turnout thought to be reaching record lows due to campus shutdowns and
lack of mobilization. This county is over 2008 Obama levels by 26.3% (54,173 votes), when that candidate drew record support from young
voters, and up 19.5% since 2016, after two consecutive elections of sparse growth in Democrat votes. This county is one of few counties Obama
overperformed in for his reelection, and 2020’s total is still 20.4% over that number. The same mathematical improbability given the
circumstances of 2020 was also seen in Washtenaw County, Michigan (home county of the University of Michigan). Dane County should be
audited and recanvassed significantly, particularly for mail and absentee ballot fraud.
Trump slightly underperformed Romney’s 2012 vote totals statewide because he lagged in total votes from suburban counties Waukesha, Racine,
Washington, Ozaukee, and Walworth. This year, he has reconsolidated the Republican base and improved at a minimum of 11.3% (Ozaukee) in
raw votes in these counties, and at a high of 17.3% (Walworth). President Trump has grown his share of raw votes in Wisconsin by a minimum
of 4.1% (Menominee) in all counties, and at a high of 24.8% (Kenosha).
Among the largest counties in the state, the largest spikes in growth since 2016 by the Democratic candidate came in St. Croix (32.7%), Ozaukee
(31.5%), Waukesha (31.1%), Washington (27.7%), placing them ahead of President Obama’s total of votes in those counties in 2008, a year in

631

9 Page 7 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

which he won the state by 13.91%. This could be feasible if the inverse pattern of “one party up, one party down” were present, suggesting the
transfer of voters from one party to the next, but President Trump has also greatly overperformed his 2016 vote totals and does not exhibit the
collapse in support seen by Democrats in 2012 and 2016, especially in known Republican strongholds. While it is plausible that Democrats
should add votes in those counties based on observed party registration trends in the Philadelphia area, it is unfathomable that those counties
would overperform their 2008 Obama vote numbers by such margins, while still adding substantial increases in raw votes to President Trump in
2020.
Despite ranking 67th in the state in percentage increase in voter registrations, Milwaukee County increased its share of Democratic votes by 9.8%,
even as President Trump increased by 6.6% while supposedly securing a higher share of minority votes than any Republican since 1960. Biden’s
total is nearly equal to Obama’s 2008 performance and reverses a massive loss of Democratic votes in 2016 in a post-Obama environment,
despite a decreasing voter roll (more than 3% decrease in registrations since 2016). Strangely, Milwaukee’s turnout dwarfs other regional
counterparts like Cleveland, Gary, and Indianapolis. This county is reported to have had many flagrant abuses of transparency regulations and is
also known to have reported results without observation in the early morning hours of November 4, 2020, which was just enough to overcome a
once formidable lead in the state by President Trump. The best course of action in Milwaukee is to recanvass and audit every mail-in and
absentee ballot for massive fraud. The trend in Cleveland, Detroit, Milwaukee, and Philadelphia recently has suggested decreasing vote totals
from one election to the next and is supported by the aforementioned significant decrease in the voter rolls in Milwaukee. This year’s reported
vote totals necessitate and improbable turnout level and suggest illegality in reporting and mail balloting.
All counties showing two consecutive cycles of inverse party trend (Republican up twice, Democrat down twice), with Democrats substantially
up this year, may be subject to counting errors, or “glitches,” like those reported in Antrim County, Michigan, or even recently in Rock County,
Wisconsin. These voting machines and their associated software should be audited and examined by coding professionals, especially if the recent
newsworthy events regarding corrupted voting software are widespread. It is highly possible that tampered or corrupted software in known
Trump strongholds may be responsible for reducing margins of raw vote victory in counties that have massively left the Democratic Party since
2008.
The entire vote in Wisconsin is suspect against recent trends and should be subject to recanvass and audit, not just a recount of hundreds of
thousands of illegal ballots. It appears that the major case in the state is that in spite of substantially growing his vote share in strong-Trump
counties, and surging in votes in urban and suburban counties, Trump’s margin is substantially limited, even after two consecutive inverse party
trends. In urban or suburban areas, Democratic vote share is soaring to record numbers, even over Obama’s totals after a 13.91% win, all while
Trump surges in votes in those counties as well. Urban areas have issues with transparency and should be fully audited for mail and absentee
fraud.

632

9 Page 8 of 8 Document 9-9
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

634

10 Page 2 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

636

10 Page 4 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

637

10 Page 5 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

639

10 Page 7 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

640

10 Page 8 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

641

10 Page 9 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

643

Exhibit 10 Page 11 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

644

Exhibit 10 Page 12 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

645

Exhibit 10 Page 13 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

646

Exhibit 10 Page 14 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

647

Exhibit 10 Page 15 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

648

Exhibit 10 Page 16 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

650

Exhibit 10 Page 18 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

651

Exhibit 10 Page 19 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

652

Exhibit 10 Page 20 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

653

Exhibit 10 Page 21 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

654

Exhibit 10 Page 22 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

655

Exhibit 10 Page 23 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

656

Exhibit 10 Page 24 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

660

Exhibit 10 Page 28 of 28 Document 9-10
Case 2:20-cv-01771-PP Filed 12/03/20

Exhibit 11

661

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 3 Document 9-11

Exhibit 11

662

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 3 Document 9-11

Exhibit 11

663

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 3 Document 9-11

Declaration of
Pursuant to 28 U.S.C Section 1746,
make the following
declaration.
1. I am over the age of 21 years and I am under no legal disability, which would prevent me
from giving this declaration.
2. I was an electronic intelligence analyst under 305th Military Intelligence with experience
gathering SAM missile system electronic intelligence. I have extensive experience as a white
hat hacker used by some of the top election specialists in the world. The methodologies I
have employed represent industry standard cyber operation toolkits for digital forensics and
OSINT, which are commonly used to certify connections between servers, network nodes
and other digital properties and probe to network system vulnerabilities.
3. I am a US citizen and I reside

location in the United States of America.

4. Whereas the Dominion and Edison Research systems exist in the internet of things, and
whereas this makes the network connections between the Dominion, Edison Research and
related network nodes available for scanning,
5. And whereas Edison Research’s primary job is to report the tabulation of the count of the
ballot information as received from the tabulation software, to provide to Decision HQ for
election results,
6. And whereas Spiderfoot and Robtex are industry standard digital forensic tools for evaluation
network security and infrastructure, these tools were used to conduct public security scans of
the aforementioned Dominion and Edison Research systems,
7. A public network scan of Dominionvoting.com on 2020-11-08 revealed the following interrelationships and revealed 13 unencrypted passwords for dominion employees, and 75
hashed passwords available in TOR nodes:

1

664

12 Page 1 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

8. The same public scan also showed a direct connection to the group in Belgrade as
highlighted below:

9. A cursory search on LinkedIn of “dominion voting” on 11/19/2020 confirms the numerous
employees in Serbia:

3

666

12 Page 3 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

10. An additional search of Edison Research on 2020-11-08 showed that Edison Research has an
Iranian server seen here:

Inputting the Iranian IP into Robtex confirms the direct connection into the “edisonresearch”
host from the perspective of the Iranian domain also. This means that it is not possible that the
connection was a unidirectional reference.

A deeper search of the ownership of Edison Research “edisonresearch.com” shows a connection
to BMA Capital Management, where shareofear.com and bmacapital.com are both connected to
edisonresearch.com via a VPS or Virtual Private Server, as denoted by the “vps” at the start of
the internet name:

4

667

12 Page 4 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Dominionvoting is also dominionvotingsystems.com, of which there are also many more
examples, including access of the network from China. The records of China accessing the server
are reliable.

5

668

12 Page 5 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

6

669

12 Page 6 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

11. BMA Capital Management is known as a company that provides Iran access to capital
markets with direct links publicly discoverable on LinkedIn (found via google on
11/19/2020):
7

670

12 Page 7 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

This Dominion partner domain “dvscorp” also includes an auto discovery feature, where new innetwork devices automatically connect to the system. The following diagram shows some of the
related dvscopr.com mappings, which mimic the infrastructure for Dominion and are an obvious
typo derivation of the name. Typo derivations are commonly purchased to catch redirect traffic
and sometimes are used as honeypots. The diagram shows that infrastructure spans multiple
different servers as a methodology.

9

672

12 Page 9 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

The above diagram shows how these domains also show the connection to Iran and other
places, including the following Chinese domain, highlighted below:

15. The auto discovery feature allows programmers to access any system while it is connected to
the internet once it’s a part of the constellation of devices (see original Spiderfoot graph).
16. Dominion Voting Systems Corporation in 2019 sold a number of their patents to China (via
HSBC Bank in Canada):

10

673

Exhibit 12 Page 10 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

11

674

Exhibit 12 Page 11 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

12

675

Exhibit 12 Page 12 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

Of particular interest is a section of the document showing aspects of the nature of the patents
dealing with authentication:

17. Smartmatic creates the backbone (like the cloud). SCYTL is responsible for the security
within the election system.

13

676

Exhibit 12 Page 13 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

18. In the GitHub account for Scytl, Scytl Jseats has some of the programming necessary to
support a much broader set of election types, including a decorator process where the data is
smoothed, see the following diagram provided in their source code:

14

677

Exhibit 12 Page 14 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

19. Unrelated, but also a point of interest is CTCL or Center for Tech and Civic Life funded by
Mark Zuckerberg. Within their github page (https://github.com/ctcl), one of the programmers
holds a government position. The Bipcoop repo shows tanderegg as one of the developers,
and he works at the Consumer Financial Protection Bureau:

15

678

Exhibit 12 Page 15 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

20. As seen in included document titled
“AA20-304AIranian_Advanced_Persistent_Threat_Actor_Identified_Obtaining_Voter_Registration_Data
” that was authored by the Cybersecurity & Infrastructure Security Agency (CISA) with a
Product ID of AA20-304A on a specified date of October 30, 2020, CISA and the FBI
reports that Iranian APT teams were seen using ACUTENIX, a website scanning software, to
find vulnerabilities within Election company websites, confirmed to be used by the Iranian
APT teams buy seized cloud storage that I had personally captured and reported to higher
authorities. These scanning behaviors showed that foreign agents of aggressor nations had
access to US voter lists, and had done so recently.
21. In my professional opinion, this affidavit presents unambiguous evidence that Dominion
Voter Systems and Edison Research have been accessible and were certainly compromised
by rogue actors, such as Iran and China. By using servers and employees connected with
rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, these organizations neglectfully allowed foreign adversaries to access data
16

679

Exhibit 12 Page 16 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

and intentionally provided access to their infrastructure in order to monitor and manipulate
elections, including the most recent one in 2020. This represents a complete failure of their
duty to provide basic cyber security. This is not a technological issue, but rather a
governance and basic security issue: if it is not corrected, future elections in the United States
and beyond will not be secure and citizens will not have confidence in the results.
I declare under penalty of perjury that the forgoing is true and correct to the best of my
knowledge. Executed this November 23th, 2020.

17

680

Exhibit 12 Page 17 of 17 Document 9-12
Case 2:20-cv-01771-PP Filed 12/03/20

681

13 Page 1 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Pro V & V and that expired on Feb 24, 2017. No other certification has been located.

9. Section 231(b) of the Help America Vote Act (HAVA) of 2002 (42 U.S.C. §15371(b))
requires that the EAC provide for the accreditation and revocation of accreditation of
independent, non-federal laboratories qualified to test voting systems to Federal standards.
Generally, the EAC considers for accreditation those laboratories evaluated and
recommended by the National Institute of Standards and Technology (NIST) pursuant to
HAVA Section 231(b)(1). However, consistent with HAVA Section 231(b)(2)(B), the
Commission may also vote to accredit laboratories outside of those recommended by NIST
upon publication of an explanation of the reason for any such accreditation.

682

13 Page 2 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

10.
11. VSTL’s are VERY important because equipment vulnerabilities allow for deployment of
algorithms and scripts to intercept, alter and adjust voting tallies.
12. There are only TWO accredited VSTLs (VOTING SYSTEM TEST LABORATORIES). In
order to meet its statutory requirements under HAVA §15371(b), the EAC has developed the EAC’s
Voting System Test Laboratory Accreditation Program. The procedural requirements of the program
are established in the proposed information collection, the EAC Voting System Test Laboratory
Accreditation Program Manual. Although participation in the program is voluntary, adherence to
the program’s procedural requirements is mandatory for participants. The procedural requirements of
this Manual will supersede any prior laboratory accreditation requirements issued by the EAC. This
manual shall be read in conjunction with the EAC’s Voting System Testing and Certification
Program Manual (OMB 3265-0019).

683

13 Page 3 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

13.

684

13 Page 4 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

14.

685

13 Page 5 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

15.

686

13 Page 6 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

16.

687

13 Page 7 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

17.
18. Pro V& V and SLI Gaming both lack evidence of EAC Accreditation as per the Voting System
Testing and Certification Manual.

688

13 Page 8 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

19. Pro V& V is owned and Operated by Jack Cobb. Real name is Ryan Jackson Cobb. The company
ProV&V was founded and run by Jack Cobb who formerly worked under the entity of Wyle
Laboratories which is an AEROSPACE DEFENSE CONTRACTING ENTITY. The address
information on the EAC, NIST and other entities for Pro V& V are different than that of what is on
ProV&V website. The EAC and NIST (ISO CERT) issuers all have another address.

689

13 Page 9 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

20. VSTLs are the most important component of the election machines as they examine the use
of COTS (Commercial Off–The-Shelf)
21. “Wyle became involved with the testing of electronic voting systems in the early 1990’s and
has tested over 150 separate voting systems. Wyle was the first company to obtain
accreditation by the National Association of State Election Directors (NASED). Wyle is
accredited by the Election Assistance Commission (EAC) as a Voting System Testing
Laboratory (VSTL). Our scope of accreditation as a VSTL encompasses all aspects of the
hardware and software of a voting machine. Wyle also received NVLAP accreditation to
ISO/IEC 17025:2005 from NIST.” Testimony of Jack Cobb 2009
22. COTS are preferred by many because they have been tried and tested in the open market and
are most economic and readily available. COTS are also the SOURCE of vulnerability
therefore VSTLs are VERY important. COTS components by voting system machine
manufacturers can be used as a “Black Box” and changes to their specs and hardware make
up change continuously. Some changes can be simple upgrades to make them more efficient
in operation, cost efficient for production, end of life (EOL) and even complete reworks to
meet new standards. They key issue in this is that MOST of the COTS used by Election
Machine Vendors like Dominion, ES&S, Hart Intercivic, Smartmatic and others is that such
manufacturing for COTS have been outsourced to China which if implemented in our
Election Machines make us vulnerable to BLACK BOX antics and backdoors due to
hardware changes that can go undetected. This is why VSTL’s are VERY important.
23. The proprietary voting system software is done so and created with cost efficiency in mind
and therefore relies on 3rd party software that is AVAILABLE and HOUSED on the
HARDWARE. This is a vulnerability. Exporting system reporting using software like
Crystal Reports, or PDF software allows for vulnerabilities with their constant updates.
24. As per the COTS hardware components that are fixed, and origin may be cloaked under
proprietary information a major vulnerability exists since once again third-party support
software is dynamic and requires FREQUENT updates. The hardware components of the
computer components, and election machines that are COTS may have slight updates that
can be overlooked as they may be like those designed that support the other third -party
software. COTS origin is important and the US Intelligence Community report in 2018
verifies that.
25. The Trump Administration made it clear that there is an absence of a major U.S. alternative
to foreign suppliers of networking equipment. This highlights the growing dominance of

690

Exhibit 13 Page 10 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

Chinese manufacturers like Huawei that are the world’s LARGEST supplier of telecom and
other equipment that endangers national security.
26. China, is not the only nation involved in COTS provided to election machines or the
networking but so is Germany via a LAOS founded Chinese linked cloud service company
that works with SCYTL named Akamai Technologies that have offices in China and are
linked to the server that Dominion Software.

691

Exhibit 13 Page 11 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

27.
28. L3 Level Communications is federal contractor that is partially owned by foreign lobbyist
George Soros. An article that AP ran in 2010 – spoke out about the controversy of this that
has been removed. (LINK) “As for the company’s other political connections, it also appears
that none other than George Soros, the billionaire funder of the country’s liberal political
infrastructure, owns 11,300 shares of OSI Systems Inc., the company that owns Rapiscan.
Not surprisingly, OSI’s stock has appreciated considerably over the course of the year. Soros
certainly is a savvy investor.” Washington Examiner re-write.

692

Exhibit 13 Page 12 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

29.

693

Exhibit 13 Page 13 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

30.
31. L-3 Communication Systems-East designs, develops, produces and integrates
communication systems and support equipment for space, air, ground, and naval
applications, including C4I systems and products; integrated Navy communication systems;
integrated space communications and RF payloads; recording systems; secure
communications, and information security systems. In addition, their site claims that
MARCOM is an integrated communications system and The Marcom® is the foundation of
the Navy’s newest digital integrated voice / data switching system for affordable command
and control equipment supporting communications and radio room automation. The
MarCom® uses the latest COTS digital technology and open systems standards to offer the
command and control user a low cost, user friendly, solution to the complex voice, video
and data communications needs of present and future joint / allied missions. Built in
reliability, rugged construction, and fail-safe circuits ensure your call and messages will go
through. Evidently a HUGE vulnerability.

694

Exhibit 13 Page 14 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

32. Michigan’s government site is thumped off Akamai Technologies servers which are housed
on TELIA AB a foreign server located in Germany.
33. Scytl, who is contracted with AP that receives the results tallied BY Scytl on behalf of
Dominion – During the elections the AP reporting site had a disclaimer.
AP – powered by SCYTL.

695

Exhibit 13 Page 15 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

34. “Scytl was selected by the Federal Voting Assistance Program of the U.S. Department of
Defense to provide a secure online ballot delivery and onscreen marking systems under a
program to support overseas military and civilian voters for the 2010 election cycle and
beyond. Scytl was awarded 9 of the 20 States that agreed to participate in the program (New
York, Washington, Missouri, Nebraska, Kansas, New Mexico, South Carolina, Mississippi
and Indiana), making it the provider with the highest number of participating States.” PDF
35. According to DOMINION : 1.4.1Software and Firmware The software and firmware
employed by Dominion D-Suite 5.5-Aconsists of 2 types, custom and commercial off the
shelf (COTS). COTS applications were verified to be pristine or were subjected to source
code review for analysis of any modifications and verification of meeting the pertinent
standards.
36. The concern is the HARDWARE and the NON – ACCREDITED VSTLs as by their own
admittance use COTS.
37. The purpose of VSTL’s being accredited and their importance in ensuring that there is no
foreign interference/ bad actors accessing the tally data via backdoors in equipment
software. The core software used by ALL SCYTL related Election Machine/Software
manufacturers ensures “anonymity” .
38. Algorithms within the area of this “shuffling” to maintain anonymity allows for setting
values to achieve a desired goal under the guise of “encryption” in the trap-door.
39. The actual use of trapdoor commitments in Bayer-Groth proofs demonstrate the implications
for the verifiability factor. This means that no one can SEE what is going on during the
process of the “shuffling” therefore even if you deploy an algorithms or manual scripts to
fractionalize or distribute pooled votes to achieve the outcome you wish – you cannot prove
they are doing it! See STUDY : “The use of trapdoor commitments in Bayer-Groth proofs
and the implications for the verifiability of the Scytl-SwissPost Internet voting system”
40. Key Terms
41. UNIVERSAL VERIFIABILITY: Votes cast are the votes counted and integrity of the vote is
verifiable (the vote was tallied for the candidate selected) . SCYTL FAILS UNIVERSAL
VERIFIABILITY because no mathematical proofs can determine if any votes have been
manipulated.
42. INDIVIDUAL VERIFIABILITY: Voter cannot verify if their ballot got correctly counted. Like, if
they cast a vote for ABC they want to verify it was ABC. That notion clearly discounts the need for
anonymity in the first place.

696

Exhibit 13 Page 16 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

43. To understand what I observed during the 2020 I will walk you through the process of one ballot cast
by a voter.
44. STEP 1 |Config Data | All non e-voting data is sent to Scytl (offshore) for configuration of data. All
e-voting is sent to CONFIGURATION OF DATA then back to the e-voting machine and then to the
next phase called CLEANSING. CONCERNS: Here we see an “OR PROOF” as coined by
mathematicians – an “or proof” is that votes that have been pre-tallied parked in the system and the
algorithm then goes back to set the outcome it is set for and seeks to make adjustments if there is a
partial pivot present causing it to fail demanding manual changes such as block allocation and
narrowing of parameters or self-adjusts to ensure the predetermined outcome is achieved.
45. STEP 2|CLEANSING | The Process is when all the votes come in from the software run by
Dominion and get “cleansed” and put into 2 categories: invalid votes and valid votes.
46. STEP 3|Shuffling /Mixing | This step is the most nefarious and exactly where the issues arise and
carry over into the decryption phase. Simply put, the software takes all the votes, literally mixes them
a and then re-encrypts them. This is where if ONE had the commitment key- TRAPDOOR KEY –
one would be able to see the parameters of the algorithm deployed as the votes go into this mixing
phase, and how algorithm redistributes the votes.
47. This published PAPER FROM University College London depicts how this shuffle works. In
essence, when this mixing/shuffling occurs, then one doesn’t have the ability to know that vote
coming out on the other end is actually their vote; therefore, ZERO integrity of the votes when
mixed.

697

Exhibit 13 Page 17 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

698

Exhibit 13 Page 18 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

“Generators” and therefore together build “commitments.”

54. Scytl and Dominion have an agreement – only the two would know the parameters. This means that
access is able to occur through backdoors in hardware if the parameters of the commitments are
known in order to alter the range of the algorithm deployed to satisfy the outcome sought in the case
of algorithm failure.
55. Trapdoor is a cryptotech term that describes a state of a program that knows the commitment
parameters and therefore is able change the value of the commitments however it likes. In other
words, Scytl or anyone that knows the commitment parameters can take all the votes and give
them to any one they want. If they have a total of 1000 votes an algorithm can distribute them
among all races as it deems necessary to achieve the goals it wants. (Case Study: Estonia)

699

Exhibit 13 Page 19 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

56.
57. Within the trapdoor this is how the algorithm behaves to move the goal posts in elections without
being detected by this proof . During the mixing phase this is the algorithm you would use to

700

Exhibit 13 Page 20 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

“reallocate” votes via an algorithm to achieve the goal set.

58. STEP 4|Decryption would be the decryption phase and temporary parking of vote tallies before
reporting. In this final phase before public release the tallies are released from encrypted format into
plain text. As previously explained, those that know the trapdoor can easily change any votes that the
randomness is applied and used to generate the tally vote ciphertext. Thus in this case, Scytl who is
the mixer can collude with their vote company clients or an agency (-------) to change votes and get
away with it. This is because the receiver doesn’t have the decryption key so they rely solely on Scytl
to be honest or free from any foreign actors within their backdoor or the Election Company (like
Dominion) that can have access to the key.
59. In fact, a study from the University of Bristol made claim that interference can be seen when there is
a GREAT DELAY in reporting and finalizing numbers University of Bristol : How not to Prove
Yourself: Pitfalls of the Fiat-Shamir Heuristic and Applications to Helios
60. “Zero-knowledge proofs of knowledge allow a prover to convince a verifier that she holds
information satisfying some desirable properties without revealing anything else.” David Bernhard,
Olivier Pereira,and Bogdan Warinschi.

701

Exhibit 13 Page 21 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

61. Hence, you can’t prove anyone manipulated anything. The TRAP DOOR KEY HOLDERS can offer
you enough to verify to you what you need to see without revealing anything and once again
indicating the inability to detect manipulation. ZERO PROOF of INTEGRITY OF THE VOTE.
62. Therefore, if decryption is challenged, the administrator or software company that knows the trap
door key can provide you proof that would be able to pass verification (blind). This was proven to be
factually true in the case study by The University of Melbourne in March. White Hat Hackers
purposely altered votes by knowing the parameters set in the commitments and there was no way to
prove they did it – or any way to prove they didn’t.
63. IT’S THE PERFECT THREE CARD MONTY. That’s just how perfect it is. They fake a proof of
ciphertexts with KNOWN “RANDOMNESS” .This rolls back to the integrity of the VOTE. The
vote is not safe using these machines not only because of the method used for ballot “cleansing” to
maintain anonymity but the EXPOSURE to foreign interference and possible domestic bad actors.
64. In many circumstances, manipulation of the algorithm is NOT possible in an undetectable fashion.
This is because it is one point heavy. Observing the elections in 2020 confirm the deployment of an
algorithm due to the BEHAVIOR which is indicative of an algorithm in play that had no pivoting
parameters applied.
65. The behavior of the algorithm is that one point (B) is the greatest point within the allocated set. It is
the greatest number within the A B points given. Point A would be the smallest. Any points outside
the A B points are not necessarily factored in yet can still be applied.
66. The points outside the parameters can be utilized to a certain to degree such as in block allocation.
67. The algorithm geographically changed the parameters of the algorithm to force blue votes and
ostracize red.
68. Post block allocation of votes the two points of the algorithm were narrowed ensuring a BIDEN win
hence the observation of NO Trump Votes and some BIDEN votes for a period of time.

702

Exhibit 13 Page 22 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

69.

703

Exhibit 13 Page 23 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

70. Gaussian Elimination without pivoting explains how the algorithm would behave and the election
results and data from Michigan confirm FAILURE of algorithm.

71. The “Digital Fix” observed with an increased spike in VOTES for Joe Biden can be determined as
evidence of a pivot. Normally it would be assumed that the algorithm had a Complete Pivot.
Wilkinson’s demonstrated the guarantee as :

72.
73. Such a conjecture allows the growth factor the ability to be upper bound by values closer to n.
Therefore, complete pivoting can’t be observed because there would be too many floating points.
Nor can partial as the partial pivoting would overwhelm after the “injection” of votes. Therefore,
external factors were used which is evident from the “DIGITAL FIX”
74. Observing the elections, after a review of Michigan’s data a spike of 54,199 votes to Biden. Because
it is pushing and pulling and keeping a short distance between the 2 candidates; but then a spike,
which is how an algorithm presents; - and this spike means there was a pause and an insert was
made, where they insert an algorithm. Block spikes in votes for JOE BIDEN were NOT paper

704

Exhibit 13 Page 24 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

ballots being fed or THUMB DRIVES. The algorithm block adjusted itself and the PEOPLE were
creating the evidence to BACK UP the block allocation.
75. I have witnessed the same behavior of the election software in countries outside of the United States
and within the United States. In -------, the elections conducted behaved in the same manner by
allocating BLOCK votes to the candidate “chosen” to win.
76. Observing the data of the contested states (and others) the algorithm deployed is identical to that
which was deployed in 2012 providing Barack Hussein Obama a block allocation to win the 2012
Presidential Elections.
77. The algorithm looks to have been set to give Joe Biden a 52% win even with an initial 50K+ vote
block allocation was provided initially as tallying began (as in case of Arizona too). In the am of
November 4, 2020 the algorithm stopped working, therefore another “block allocation” to remedy
the failure of the algorithm. This was done manually as ALL the SYSTEMS shut down
NATIONWIDE to avoid detection.

78.
79. In Georgia during the 2016 Presidential Elections a failed attempt to deploy the scripts to block
allocate votes from a centralized location where the “trap-door” key lay an attempt by someone using

705

Exhibit 13 Page 25 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

the DHS servers was detected by the state of GA. The GA leadership assumed that it was “Russians”
but later they found out that the IP address was that of DHS.
80. In the state of Wisconsin, we observed a considerable BLOCK vote allocation by the algorithm at the
SAME TIME it happened across the nation. All systems shut down at around the same time.

81.
82. In Wisconsin there are also irregularities in respect to BALLOT requests. (names AND address
Hidden for privacy)

83.

706

Exhibit 13 Page 26 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

84.
85. I can personally attest that in 2013 discussions by the Obama / Biden administration were being had
with various agencies in the deployment of such election software to be deployed in ----- in 2013.
86. On or about April 2013 a one year plan was set to fund and usher elections in -----.
87. Joe Biden was designated by Barack Hussein Obama to ensure the ----- accepted assistance.
88. John Owen Brennan and James (Jim) Clapper were responsible for the ushering of the intelligence
surrounding the elections in -----.
89. Under the guise of Crisis support the US Federal Tax Payers funded the deployment of the election
software and machines in ------ signing on with Scytl.

90.

707

Exhibit 13 Page 27 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

91. Right before the ----- elections it was alleged that CyberBerkut a pro-Russia group infiltrated --central election computers and deleted key files. These actions supposedly rendered the votetallying system inoperable.
92. In fact, the KEY FILES were the Commitment keys to allow Scytl to tally the votes rather than the
election machines. The group had disclosed emails and other documents proving that their election
was rigged and that they tried to avoid a fixed election.
93. The elections were held on May 25, 2014 but in the early AM hours the election results were
BLOCKED and the final tally was DELAYED flipping the election in favor of -----.
94. The claim was that there was a DDoS attack by Russians when in actual fact it was a mitigation of
the algorithm to inject block votes as we observed was done for Joe Biden because the KEYS were
unable to be deployed. In the case of -----, the trap-door key was “altered”/deleted/ rendered
ineffective. In the case of the US elections, representatives of Dominion/ ES&S/ Smartmatic/ Hart
Intercivic would have to manually deploy them since if the entry points into the systems seemed to
have failed.
95. The vote tallying of all states NATIONWIDE stalled and hung for days – as in the case of Alaska
that has about 300K registered voters but was stuck at 56% reporting for almost a week.
96. This “hanging” indicates a failed deployment of the scripts to block allocate remotely from one
location as observed in ------ on May 26, 2014.
97. This would justify the presence of the election machine software representatives making physical
appearances in the states where the election results are currently being contested.
98. A Dominion Executive appeared at the polling center in Detroit after midnight.
99. Considering that the hardware of the machines has NOT been examined in Michigan since 2017 by
Pro V& V according to Michigan’s own reporting. COTS are an avenue that hackers and bad actors
seek to penetrate in order to control operations. Their software updates are the reason vulnerabilities
to foreign interference in all operations exist.
100.

The importance of VSTLs in underrated to protect up from foreign interference by way of open

access via COTS software. Pro V& V who’s EAC certification EXPIRED on 24 FEB 2017 was
contracted with the state of WISCONSIN.
101.

In the United States each state is tasked to conduct and IV& V (Independent Verification and

Validation) to provide assurance of the integrity of the votes.
102.

If the “accredited” non-federal entities have NOT received EAC accreditation this is a failure of

the states to uphold their own states standards that are federally regulated.
103.

In addition, if the entities had NIST certificates they are NOT sufficing according the HAVA

ACT 2002 as the role of NIST is clear.
104.

Curiously, both companies PRO V&V and SLI GAMING received NIST certifications

OUTSIDE the 24 month scope.

708

Exhibit 13 Page 28 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

105.

PRO V& V received a NIST certification on 26MAR2020 for ONE YEAR. Normally the NIST

certification is good for two years to align with that of EAC certification that is good for two years.

106.
107.

The last PRO V& V EAC accreditation certificate (Item 8) of this declaration expired in

February 2017 which means that the IV & V conducted by Michigan claiming that they were
accredited is false.
108.

The significance of VSTLs being accredited and examining the HARDWARE is key. COTS

software updates are the avenues of entry.
109.

As per DOMINION’S own petition, the modems they use are COTS therefore failure to have an

accredited VSTL examine the hardware for points of entry by their software is key.

709

Exhibit 13 Page 29 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

110.
111.

For example and update of Verizon USB Modem Pantech undergoes multiple software updates a

year for it’s hardware. That is most likely the point of entry into the systems.
112.

During the 2014 elections in ---- it was the modems that gave access to the systems where the

commitment keys were deleted.
113.

SLI Gaming is the other VSTL “accredited” by the EAC BUT there is no record of their

accreditation. In fact, SLI was NIST ISO Certified 27 days before the election which means that PA
IV&V was conducted without NIST cert for SLI being valid.

710

Exhibit 13 Page 30 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

114.
115.

In fact SLI was NIST ISO Certified for less than 90 days.

116.

I can personally attest that high-level officials of the Obama/Biden administration and large

private contracting firms met with a software company called GEMS which is ultimately the
software ALL election machines run now running under the flag of DOMINION.
117.

GEMS was manifested from SOE software purchased by SCYTL developers and US Federally

Funded persons to develop it.
118.

The only way GEMS can be deployed across ALL machines is IF all counties across the nation

are housed under the same server networks.
119.

GEMS was tasked in 2009 to a contractor in Tampa, Fl.

120.

GEMS was also fine-tuned in Latvia, Belarus, Serbia and Spain to be localized for EU

deployment as observed during the Swissport election debacle.
121.

John McCain’s campaign assisted in FUNDING the development of GEMS web monitoring via

WEB Services with 3EDC and Dynology.

711

Exhibit 13 Page 31 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

122.
123.
124.

AKAMAI Technologies services SCYTL.

712

Exhibit 13 Page 32 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

125.

AKAMAI Technologies Houses ALL foreign government sites. (Please see White Paper by

Akamai.)
126.

AKAMAI Technologies houses ALL .gov state sites. (ref Item 123 Wisconsin.gov Example)

127.
128.

Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES based out of

GERMANY.
129.

Using AKAMAI Technologies is allowing .gov sites to obfuscate and mask their systems by way

of HURRICANE ELECTRIC (he.net) Kicking it to anonymous (AKAMAI Technologies) offshore
servers.

130.
131.

AKAMAI Technologies has locations around the world.

132.

AKAMAI Technologies has locations in China (ref item 22)

133.

AKAMAI Technologies has locations in Iran as of 2019.

134.

AKAMAI Technologies merged with UNICOM (CHINESE TELECOMM) in 2018.

135.

AKAMAI Technologies house all state .gov information in GERMANY via TELIA AB.

713

Exhibit 13 Page 33 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

136.

In my professional opinion, this affidavit presents unambiguous evidence:

137.

That there was Foreign interference, complicit behavior by the previous administrations from

1999 up until today to hinder the voice of the people and US persons knowingly and willingly colluding
with foreign powers to steer our 2020 elections that can be named in a classified setting.
138.

Foreign interference is present in the 2020 election in various means namely,

139.

Foreign nationals assisted in the creation of GEMS (Dominion Software Foundation)

140.

Akamai Technologies merged with a Chinese company that makes the COTS components of the

election machines providing access to our electronic voting machines.
141.

Foreign investments and interests in the creation of the GEMS software.

142.

US persons holding an office and private individuals knowingly and willingly oversaw fail safes

to secure our elections.
143.

The EAC failed to abide by standards set in HAVA ACT 2002.

144.

The IG of the EAC failed to address complaints since their appointment regarding vote integrity

145.

Christy McCormick of the EAC failed to ensure that EAC conducted their duties as set forth by

HAVA ACT 2002
146.

Both Patricia Layfield (IG of EAC) and Christy McCormick (Chairwoman of EAC) were

appointed by Barack Hussein Obama and have maintained their positions since then.
147.

The EAC failed to have a quorum for over a calendar year leading to the inability to meet the

standards of the EAC.
148.

AKAMAI Technologies and Hurricane Electric raise serious concerns for NATSEC due to their

ties with foreign hostile nations.
149.

For all the reasons above a complete failure of duty to provide safe and just elections are

observed.
150.

For the people of the United States to have confidence in their elections our cybersecurity

standards should not be in the hands of foreign nations.
151.

Those responsible within the Intelligence Community directly and indirectly by way of

procurement of services should be held accountable for assisting in the development, implementation and
promotion of GEMS.
152.

GEMS ------- General Hayden.

153.

In my opinion and from the data and events I have observed --------------------- with the

assistance of SHADOWNET under the guise of L3-Communications which is MPRI. This is also
confirmed by us.army.mil making the statement that shadownet has been deployed to 30 states which all

714

Exhibit 13 Page 34 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

happen to be using Dominion Machines.

154.

Based on my research of voter data – it appears that there are approximately 23,000 residents of

a Department of Corrections Prison with requests for absentee ballot in Wisconsin. We are currently
reviewing and verifying the data and will supplement.

715

Exhibit 13 Page 35 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

155.

716

Exhibit 13 Page 36 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

I declare under penalty of perjury that the forgoing is true and correct to the best of my knowledge.
Executed this November 29th, 2020.

717

Exhibit 13 Page 37 of 37 Document 9-13
Case 2:20-cv-01771-PP Filed 12/03/20

DECLARATION OF RONALD WATKINS
I, Ronald Watkins, hereby state the following:
1.

My name is Ronald Watkins. I am a United States citizen currently residing in Japan.

2.

I am an adult of sound mind. All statements in this declaration are based on my personal
knowledge and are true and correct. I am making this statement voluntarily and on my own
initiative. I have not been promised, nor do I expect to receive, anything in exchange for my
testimony and giving this statement. I have no expectation of any profit or reward and
understand that there are those who may seek to harm me for what I say in this statement.

3.

I make this declaration because I want to alert the public and let the world know the truth
about the insecurity of actual voting tabulation software used in various states for
administering the 2020 Presidential and other elections. The software is designed, whether
with malicious intent or through plain incompetence, in such a way so as to facilitate digital
ballot stuffing via simple vote result manipulation and abuse of the digital adjudication
manual review system. Specifically, the Dominion Democracy Suite both enables voter
fraud by unethical officials out to undermine the will of the people and facilitates tabulation
errors by honest officials making simple, nearly untraceable mistakes.

4.

I believe voting is a fundamental manifestation of our right to self-government, including
our right to free speech. Under no circumstance should we allow a conspiracy of people
and companies to subvert and destroy our most sacred rights.

5.

I am a network and information security expert with nine years of experience as a network
and information defense analyst and a network security engineer. In my nine years of
network and information security experience, I have successfully defended large websites
and complex networks against powerful cyberattacks. I have engaged in extensive training
and education and learned through experience how to secure websites and networks.

6.

In preparation for making this declaration, I have reviewed extensive technical materials
relating to the Dominion Voting Democracy Suite, including those cited herein.

7.

The Dominion Voting Systems ImageCast Central system is a software and hardware
workstation system designed to work with just a common “Windows 10 Pro”12 computer

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p3, [online document],
https://www.sos.state.co.us/pubs/elections/VotingSystems/DVS-documentation/UG-ICCUserGuide-5-11-CO.pdf (Accessed November 23, 2020)
https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/elections/Voting
Systems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11-CO.pdf [archive]

1

Georgia State Certification Testing, Dominion Voting Systems D-Suite 5.5-A Voting System,
p5, table 2-1, [online document]
https://sos.ga.gov/admin/uploads/Dominion_Test_Cert_Report.pdf (accessed November, 23,

2

718

14 Page 1 of 6 Document 9-14
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

1

paired via data cable3 to an off- the-shelf document scanner4 “for high speed scanning and
counting of paper ballots.”5
8.

When bulk ballot scanning and tabulation begins, the “ImageCast Central” workstation
operator will load a batch of ballots into the scanner feed tray and then start the scanning
procedure within the software menu.6 The scanner then begins to scan the ballots which
were loaded into the feed tray while the “ImageCast Central” software application

2020),
https://web.archive.org/web/20201106055006/https://sos.ga.gov/admin/uploads/Dominion_Test_
Cert_Report.pdf [archive].
Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p2, s2.1, [online
document, https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020) https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].

3

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p6,
1.1.E.1, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech
_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/sos/071B77
00117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive]

4

Commonwealth of Pennsylvania Department of State, Report Concerning the Examination
Results of Dominion Voting Systems Democracy Suite 5.5A p6, s2.4, [online document],
https://www.dos.pa.gov/VotingElections/Documents/Voting%20Systems/Dominion%20Democr
acy%20Suite%205.5A/Dominion%20Democracy%20Suite%20Final%20Report%20scanned%20with%20signature%
20011819.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201016161321/https://www.dos.pa.gov/VotingElections/Docume
nts/Voting%20Systems/Dominion%20Democracy%20Suite%205.5-A/Dominion%20Democracy
%20Suite%20Final%20Report%20scanned%20with%20signature%20011819.pdf [archive]

5

Dominion Voting, ImageCast Central, p2, [online document],
https://www.edcgov.us/Government/Elections/Documents/ImageCast%20Central%20Brochure
%202018%20FINAL.pdf (accessed November 23, 2020)
https://web.archive.org/web/20201017175507/https://www.edcgov.us/Government/Elections/Do
cuments/ImageCast%20Central%20Brochure%202018%20FINAL.pdf [archive]

6

719

14 Page 2 of 6 Document 9-14
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

2

tabulates votes in real-time. Information about scanned ballots can be tracked inside the
“ImageCast Central” software application.7
9.

After all of the ballots loaded into the scanner's feed tray have been through the scanner,
the “ImageCast Central” operator will remove the ballots from the tray and then will have
the option to “Accept Batch” on the scanning menu.8 Accepting the batch saves the results
into the local file system within the “Windows 10 Pro” machine.9 Any “problem ballots”
that may need to be examined or adjudicated at a later time can be found as ballot scans
saved as image files into a standard Windows folder named “NotCastImages”.10 These
“problem ballots” are automatically detected during the scanning phase and digitally set
aside for manual review based on exception criteria.11 Examples of exceptions may include:
overvotes, undervotes, blank contests, blank ballots, write-in selections, and marginal

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].

7

Dominion Voting, ImageCast Central, [website], https://www.dominionvoting.com/imagecastcentral/ (Accessed November 23, 2020)
https://web.archive.org/web/20201101203418/https://www.dominionvoting.com/imagecastcentral/ [archive].

8

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].

9

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].
10

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p21,
1.3.B.6, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech
_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/sos/071B77
00117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive].
11

720

14 Page 3 of 6 Document 9-14
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

3

marks.”12 Customizable outstack conditions and marginal mark detection lets [Dominion's
Customers] decide which ballots are sent for Adjudication.13
10.

During the ballot scanning process, the “ImageCast Central” software will detect how
much of a percent coverage of the oval was filled in by the voter.14 The Dominion customer
determines the thresholds of which the oval needs to be covered by a mark in order to
qualify as a valid vote.1516 If a ballot has a marginal mark which did not meet the specific
thresholds set by the customer, then the ballot is considered a “problem ballot” and may
be set aside into a folder named “NotCastImages.”17 “The ImageCast Central's advanced

[11] MASTER SOLUTION PURCHASE AND SERVICES AGREEMENT BY AND
BETWEEN DOMINION VOTING SYSTEMS, INC. as Contractor, and SECRETARY OF
STATE OF THE STATE OF GEORGIA as State, p52, s1.3, [online document],
https://georgiaelections.weebly.com/uploads/1/0/8/5/108591015/contract.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201122213728/https://georgiaelections.weebly.com/uploads/1/0/8
/5/108591015/contract.pdf [archive].
12

Dominion Voting, ImageCast Central, [website], https://www.dominionvoting.com/imagecastcentral/ (Accessed November 23, 2020)
https://web.archive.org/web/20201101203418/https://www.dominionvoting.com/imagecastcentral/ [archive].
13

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p3,
1.1.A.22, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech
_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/sos/071B77
00117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive].
14

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, p19, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local
%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed November 23, 2020),
https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/calhouncountymi/
Clerk%20&%20Register%20of%20Deeds/local%20clerk%20resources/5_5_icc_operations_man
ual.pdf [archive].
15

IMAGECAST® CENTRAL Brochure, [website],
https://www.edcgov.us/Government/Elections/Documents/ImageCast%20Central%20Brochure
%202018%20FINAL.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201017175507/https://www.edcgov.us/Government/Elections/Do
cuments/ImageCast%20Central%20Brochure%202018%20FINAL.pdf [archive].
16

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
17

721

14 Page 4 of 6 Document 9-14
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

4

settings allow for adjustment of the scanning properties to “[set] the clarity levels at which
the ballot should be scanned at.” Levels can be set as a combination of brightness and
contrast values, or as a gamma value.”18
11.

Based on my review of these materials, I conclude the system is designed in such a way that
it allows a dishonest or otherwise unethical election administrator to creatively tweak the
oval coverage threshold settings and advanced settings on the ImageCast Central scanners
to set thresholds in such a way that a non-trivial amount of properly-marked ballots are
marked as “problem ballots” and sent to the “NotCastImages” folder.

12.

The administrator of the ImageCast Central work-station may view all images of scanned
ballots which were deemed “problem ballots” by simply navigating via the standard
“Windows File Explorer” to the folder named “NotCastImages” which holds ballot scans
of “problem ballots.”1920 Under this system, it is possible for an administrator of the
“ImageCast Central” workstation to view and delete any individual ballot scans from the
“NotCastImages” folder by simply using the standard Windows delete and recycle bin
functions provided by the Windows 10 Pro operating system. Adjudication is “the process
of examining voted ballots to determine, and, in the judicial sense, adjudicate voter
intent.”21

elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].
Dominion Voting, Democracy Suite®ImageCast® Central User Guide, pp20-21, s3.22,
[online document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed November 23,
2020), https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide- 5-11CO.pdf [archive].
18

Dominion Voting, Democracy Suite® Use Procedures, p433, F.3.11, [online document]
https://votingsystems.cdn.sos.ca.gov/vendors/dominion/ds510-use-proc-jan.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201101173723/https://votingsystems.cdn.sos.ca.gov/
vendors/dominion/ds510-use-proc-jan.pdf [archive].
19

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, p27, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local
%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed November 23, 2020),
https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/calhouncountymi/
Clerk%20&%20Register%20of%20Deeds/local%20clerk%20resources/5_5_icc_operations_man
ual.pdf [archive].
20

Dominion Voting, Democracy Suite® Use Procedures, p9, [online document]
https://votingsystems.cdn.sos.ca.gov/vendors/dominion/ds510-use-proc-jan.pdf (Accessed
November 23, 2020),
21

722

14 Page 5 of 6 Document 9-14
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

5

13.

Based on my review of these materials, I conclude that a biased poll worker without
sufficient and honest oversight could abuse the adjudication system to fraudulently switch
votes for a specific candidate.

14.

After the tabulation process, the ImageCast Central software saves a copy of the tabulation
results locally to the “Windows 10 Pro” machine's internal storage. The results data is
located in an easy-to-find path which is designed to easily facilitate the uploading of
tabulation results to flash memory cards. The upload process is just a simple copying of a
“Results” folder containing vote tallies to a flash memory card connected to the “Windows
10 Pro” machine. The copy process uses the standard drag-and-drop or copy/paste
mechanisms within “Windows File Explorer.”22 It is my conclusion that while this is a
simple procedure, the report results process is subject to user errors and is very vulnerable
to corrupt manipulation by a malicious administrator. It is my conclusion that, before
delivering final tabulation results to the county, it is possible for an administrator to
mistakenly copy the wrong “Results” folder or even maliciously copy a false “Results”
folder, which could contain a manipulated data set, to the flash memory card and deliver
those false “Results” as the outcome of the election.

I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct. Executed in Japan on November 24, 2020.

__________________________
Ronald Watkins

https://web.archive.org/web/20201101173723/https://votingsystems.cdn.sos.ca.gov/
vendors/dominion/ds510-use-proc-jan.pdf [archive].
Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, pp25-28, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local
%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed November 23,
2020),https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/calhouncoun
tymi/Clerk%20&%20Register%20of%20Deeds/local%20clerk%20resources/5_5_icc_operations
_manual.pdf [archive].
22

723

14 Page 6 of 6 Document 9-14
Case 2:20-cv-01771-PP FiledExhibit
12/03/20

6

724

Exhibit 15
Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 2 Document 9-15

725

Exhibit 15
Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 2 Document 9-15

726

16 Page 1 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

727

16 Page 2 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

728

16 Page 3 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

729

16 Page 4 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

730

16 Page 5 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

731

16 Page 6 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

732

16 Page 7 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

733

16 Page 8 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

734

16 Page 9 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

735

Exhibit 16 Page 10 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed 12/03/20

736

Exhibit 16 Page 11 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed 12/03/20

737

Exhibit 16 Page 12 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed 12/03/20

738

Exhibit 16 Page 13 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed 12/03/20

739

Exhibit 16 Page 14 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed 12/03/20

740

Exhibit 16 Page 15 of 15 Document 9-16
Case 2:20-cv-01771-PP Filed 12/03/20

741

17 Page 1 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

742

17 Page 2 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

743

17 Page 3 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

744

17 Page 4 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

745

17 Page 5 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

746

17 Page 6 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

747

17 Page 7 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

748

17 Page 8 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

749

17 Page 9 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

750

Exhibit 17 Page 10 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed 12/03/20

751

Exhibit 17 Page 11 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed 12/03/20

752

Exhibit 17 Page 12 of 12 Document 9-17
Case 2:20-cv-01771-PP Filed 12/03/20

Declaration of

Ph.D

November 30, 2020
Pursuant to 28 U.S.C Section 1746, I,
ing declaration.

, make the follow-

1. I am over the age of 21 years and I am under no legal disability, which
would prevent me from giving this declaration.
2.

has a Ph.D in Electrical Engineering from the University of California at Davis and a Masters degree in Mathematics from
the University of California at Berkeley. I have been employed, for over 28
years, in the signal processing and wireless signal processing domain, with
an emphasis on statistical signal processing. I have published numerous
journal and conference articles. Additionally, I have held Top Secret and
SAP clearances and I am an inventor of nearly 30 patents, one of which
has over 1000 citations in the field of MIMO communications (Multiple
Input Multiple Output).

3. I reside at

,

.

4. Given the data sources referenced in this document, I assert that in Georgia, Pennsylvania and the city of Milwaukee, a simple statistical model of
vote fraud is a better fit to the sudden jump in Biden vote percentages
among absentee ballots received later in the counting process of the 2020
presidential election. It is also a better fit when constrained to a single
large Metropolitan area such as Milwaukee..
5. Given the same data sources, I also assert that Milwaukee precincts exhibit statistical anomalies that are not normally present in fair elections..
The fraud model hypothesis in Milwaukee has a posterior probability of
100% to machine precision. This model predicts 105,639 fraudulent Biden
ballots in Milwaukee.
6. I assert that the data suggests aberrant statistical anomalies in the vote
counts in Michigan, when observed as a function of time.
Signature:

1

763

19 Page 1 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Supporting evidence for the assertions in (4) and 5 is provided in the following pages.

1

Impact of Fraud on the Election

In the analysis that follows, it is possible to obtain rough estimates on how vote
fraud could possibly have effected the election. In Georgia, there is evidence
that votes were actually switched from Trump to Biden. As many as 51,110
Biden votes were fraudulent and as many as 51,110 votes could be added to
Trump. An audit to determine vote switching will be more difficult, since it
is likely the Trump ballots have been destroyed in Georgia, based on reports
of ballots being shredded there. If instead we presume that Bidens fraudulent
votes were simply added to the totals, then we estimate that 104,107 ballots
should be removed from Biden’s totals.
In Pennsylvania, from just one batch of absentee ballots, approximately
72668 of them are estimated to be fraudulent Biden votes. Our analysis of
Milwaukee shows that 105,639 Biden ballots could be fraudulent. Moreover
there is evidence of vote switching here, which might give as many as 42365
additional ballots to Trump, and remove the same from Biden.
Michigan yields an estimate of 237,140 fraudulent Biden votes added to
the total, using conservative estimates of the Biden percentage among the new
ballots.

2

Statistical Model

The simplest statistical model for computing the probabilities for an election
outcome is a binomial distribution, which assigns a probability p for a given person within the population to select a candidate. If we assume that each person
chooses their candidate independently, then we obtain the Binomial distribution
in the form,
N −k
P (k|N ) ≡ N Ck pk (1 − p)
,
(1)
where P (k|N ) is the probability that you observe k votes for a candidate in
a population of N voters, and where N Ck is the number of ways to choose k
people out of a group of N people.
For larger N, the binomial distribution can be approximated by a Gaussian
distribution, which is used in the election fraud analysis in [1]. The chief reason
for this is the difficulty of computing P (k|N ) for large N and k. However this
problem can be overcome by computing the probabilities in the log domain and
using the log beta function to compute N Ck .
For this analysis it is more useful to compute the probabilities as a function
of f the observed fraction of the candidate’s votes. In this formulation we
have k = N f, and N − k = N (1 − f ) , and therefore we define the fractional
probability as,
N (1−f )
BN (f ) ≡ N CN f pN f (1 − p)
.
(2)
2

764

19 Page 2 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

2.1

Fraud Model

To model voting fraud we assume a fixed fraction α of votes are given to the
cheater. The pool of available voters who actually voted is now N (1 − α) . The
fraction who actually voted for the cheater is given by f − α. The probability
that the fraction f voters reported for the cheater, with the fraction α stolen,
can therefore be written as,
CN,α (f ) ≡ BN (1−α) (f − α) .

(3)

This is similar to the fraud model used in the election fraud analysis given
in [1]. We use the Binomial distribution directly, rather than the Gaussian
distribution, since it should be more accurate for small N, k or f.

2.2

Posterior Probability of Fraud Model

A hypothesis test can now be set up between the standard voting statistics of
(2) vs the statistics of the fraud model (3). If we use Bayesian inference we can
compute an estimate of the posterior probability of the fraud model. This can
be written as,
CN,α (f )pF
,
P (F |f ) =
CN,α (f )pF + BN (f ) (1 − pF )
where pF is the prior probability of fraud. In our investigation we assume fraud
is unlikely and set pF = 0.01.

3

Analysis of Absentee Ballots in the 2020 Election

For this analysis we extracted data from the all_states_timeseries.csv file,
which can be found at the internet url: https://wiki.audittheelection.
com/index.php/Datasets. We look at the absentee ballot results near the beginning of the time series and then compare it to the end or the middle of the
period, after a sufficient enough ballots were added.
For the models in Section 2 we assign the probability p of a Biden vote using
the final data. This assumption is actually more favorable to the cheater. As
mentioned earlier we set the prior probability of fraud to pF = 0.01, and the
cheating fraction, α, is set to α = f − p, where f is the observed Biden fraction
in the newly added ballots. This isolates the statistics of the added ballots from
the final observed statistics.
We focus on the absentee ballots, because they are dominated by large democratic cities and there is no obvious reason why those statistics should change
appreciably over time. Furthermore it should be noted that the start time for
this data, mid day Nov. 4., was well after some of the larger absentee ballot
dumps occured.

3

765

19 Page 3 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Figure 1: Reported Biden Fraction In Illinois vs Time

3.1

Control Case Illinois

We choose Illinois as a control case, since it has a significant number of absentee
ballots that were counted later and provides a fairly clean baseline. The reported
Biden fraction vs time is given in Figure 1.
As we can see there is not much change in the Biden statistics from the
initial 601,714 absentee ballots when compared with the 54,117 ballots that
were added. This is further shown by the bar chart in Figure 2.
Using our formula for the posterior probability of fraud in (3) we obtain the
probability that the fraud model is correct of 6.5%. This lends good support to
the idea that the Illinois absentee ballots were counted fairly.

3.2

Analysis of Georgia Absentee Ballots

The Georgia absentee ballot count started at 3,701,005 and 303,988 ballots
were added. The Biden fraction among absentee ballots as a function of time
is shown in Figure (3). This plot shows a statistical abnormality in that the

4

766

19 Page 4 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Figure 2: Before and Added Biden Fraction

5

767

19 Page 5 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Figure 3: Georgia Absentee Ballots vs Time: (Biden Fraction)
Biden fraction appears to always be increasing. This is statistically unlikely
and is not typically seen in fair elections. Normally you would see a mixture of
votes of Biden and his opponents, and would see random deviation around the
asymptote.
We investigate this phenomenon more fully in Figure (4). The added ballots have a Biden percentage of around 70%, while the initial statitics were at
50%. This is a very large jump for such a large sample size and seems very
unlikely. Indeed the probability that the fraud model is correct is 100%, up to
the precision of double floating point arithmetic.
Assuming that the prior absentee ballot distribution is the correct one, we
can form a simple prediction for how many of Biden’s ballots were fraudulent.
Let N1 = 303, 988, the number of ballots added, and let B = 189, 497 be the
number of Biden votes in this new batch. If the fraction of Biden votes should
actually be f = 0.509. Let x be the proposed number of fraudulent Biden votes,

6

768

19 Page 6 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Figure 4: Before and After Biden Fraction in Georgia

7

769

19 Page 7 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

then we have,
B−x
=f
N1 − x
B − N1 f
x=
.
1−f

(4)

In the case that votes were actually switched from Trump to Biden, then
the formula becomes,
B−x
=f
N1
x = B − N1 f
This would suggest that 104,107 ballots were fraudulently manufactured for
Biden. If we presume that actually those ballots were switched from Trump
to Biden then as many as 19% of the new absentee ballots for Biden were
fraudulent, which totals around 51,110 ballots that should be removed from
Biden’s totals and added to Trump. We shall see in Section 6, that there is
substantial evidence that some Trump votes were actually switched to Biden
votes.

3.3

Analysis of Pennsylvania Absentee Ballots

The Pennsylvania absentee ballot count started at 785,473 and 319,741 ballots
were added at 39 hours after the start of the data record. The Biden fraction
among absentee ballots as a function of time is shown in Figure (5). This plot
shows some oddities in that the Biden fraction fluctuates with large deviations.
In Figure (6) we see the initial Biden percentage compared with the Biden
percentage of the added ballots over the first 39 hours. The added ballots have
a Biden percentage of around 83%, while the initial statistics were at 78%. This
is a very large jump for such a large sample size and seems very unlikely. Indeed
the probability that the fraud model is correct is 100%, up to the precision of
double floating point arithmetic.
If we just examine the initial large batch of votes among the absentee ballots,
we see an unexplained jump of 5% for Biden. Although it is likely that most
of the fraud, if any, occurred earlier in the vote count, just this batch of ballots
suggests that approximately 72668 Biden ballots are fraudulent. If we presume
that the votes were stolen from Trumps votes, then 15987 Biden ballots are
fraudulent and should be added to Trump’s total.

4

Analysis of Milwaukee County in Wisconsin

We now switch our analysis to a data set that contains precinct data for Milwaukee county. The data was obtained from the twitter acount of @shylockh,
who derived his sources from the New York Times and in some cases from
8

770

19 Page 8 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Figure 5: Pennsylvania Absentee Ballots vs Time: (Biden Fraction)
the unofficial precinct reports from the Wisconsin elections commision website.
We examine vote percentages for ballots added between Wednesday morning,
11/04/2020 and Thursday night 11/05/2020.
This data set gives the total vote count by party affiliation. Because the data
set is confined to Milwaukee, we can assume that the statistics should not be
time varying. The voting pool here is highly partisan in favor of democrats and
we don’t expect any significant difference in the voting percentage, especially
since a large number of absentee ballots were already counted by Wednesday
morning.

4.1

Analysis of Milwaukee County Democrat results

The percentage of democrat voters increases by 15% among the ballots added
on Wednesday and Thursday. On Wednesday morning Milwaukee had received
165,776 ballots. By Thursday evening 458,935 ballots were received, adding
293,159 ballots.
In Figure 7 we see the large deviation in democrat percentage between the
Wednesday morning and those added by Thursday evening. This too causes the
posterior probability of the fraud model to be 100% to machine precision.
Assuming that there was fraud, we estimate that 105,639 fraudulent Biden
ballots were added between Wednesday and Thursday of 11/05/2020 in Milwaukee alone. However as we shall see below, many of these votes may well have
been switched from Trump to Biden, which would also give Trump an additional

9

771

19 Page 9 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed Exhibit
12/03/20

Figure 6: Before and After Biden Fraction in Pennsylvania

10

772

Exhibit 19 Page 10 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 7: Before and After Democrat Fraction in Milwaukee

11

773

Exhibit 19 Page 11 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 8: Baseline Cumulative Fractions Sorted by Precinct Size
42365 votes and remove 42365 votes from Biden.

4.2

Candidate Percentages Sorted by Ward Size

Another useful tool for evaluating fraud is to look at the cumulative vote percentages sorted by an independent input factor. An easy factor to use is ward
or precinct size. This concept was used throughout the report on voter irregularities in [2]. In that report there was an anomalous dependency on precinct
size in many of the 2016 primary elections. The larger precincts had introduced
the use of voting machines. But one could also theorize the opportunity for
cheaters to cheat in small precincts, where there may be less oversight.
Normally we would expect the cumulative vote percentage to converge to an
asymptote, and bounce around the mean until convergence. An example of this
can be found from the 2000 Florida Democratic presidential primary between
Gore and Bradley. This is shown in Figure 8, and is taken from [2].
However when one sorts the Milwaukee, Thursday night data, by precinct

12

774

Exhibit 19 Page 12 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 9: Milwaukee Democrat Ballots Percentage vs Ward Size
size, you will see trendlines that do not converge to an asymptote, as shown
in Figure 9. It appears that smaller precincts almost uniformly have higher
Democrat percentages. There is no obvious reason for this. It was certainly not
seen in the control case in Figure 8. Furthermore the third party percentages
quickly converge to their asymptote as would be expected in a fair election. One
possible model for this would be vote switching from Trump to Biden, which
would show up more strongly in the smaller precincts.

5

Analysis of Third Party Vote Count

Third party voters offer another way to examine a possible fraud mechanism.
Votes could either be switched from third party candidates to the cheater, or
fraudulent ballots that are added to benefit the cheater, may not include third
party choices. For the control example, we look at absentee ballots in the state of
Massachusetts. In Massachusetts the initial absentee ballot count was 117,618,
and the number of added absentee ballots is 10,281.
The reported 3rd party percentage of absentee ballots vs time in Massachusetts is shown in Figure 10 and the comparison of the inital and added 3rd
party ballots in MA is shown in Figure 11. There is only a small change in party
preference, relative to the size of the added ballots. Therefore the probability
of the fraud model is only 22%.
When we look at the total 3rd party percentages in Milwaukee, between
Wednesday morning and Thursday night, we see a significant drop from 1.9
percent to 1.4% for the newly added ballots. But this is among 293,159 added

13

775

Exhibit 19 Page 13 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 10: MA 3rd Party Absentee Votes vs Time

14

776

Exhibit 19 Page 14 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 11: MA 3rd Party Percentage Initial and Added

15

777

Exhibit 19 Page 15 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 12: Milwaukee 3rd Party Percentages between Wednesday and Added
ballots. This is illustrated in Figure 12. Again in this case the fraud model has
a posterior probability of 100% to machine precision.

6

Analysis of Fulton and DeKalb Counties in
Georgia

We perform a precinct level analysis of Fulton and DeKalb counties in Georgia
based on an aggregate data set likely culled from the New York Times. The
Fulton data was collected on 11/08/2020 and the DeKalb data was collected on
11/09/2020. As in Milwaukee we look at the cumulative vote percentages as a
function of precinct size. A plot of this for DeKalb county is shown in Figure
13.
Although there are somewhat concerning trendlines in the beginning, after
the size 600 precinct mark, thereafter the overall picture is what one would expect of an election where the voter preferences are not dependent on precinct
size. Both DeKalb and Fulton counties are in predominantly urban Atlanta,
16

778

Exhibit 19 Page 16 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 13: Dekalb County Absentee Ballots: Percentages vs Precinct Size
neighbor one another, and have similar voting preferences across precincts.
DeKalb county is still suspect, however, due to the irregularites observed prior
to the Ward 600 mark.
A different story emerges when we plot the absentee vote percentages for
Fulton county as a function of precinct size, as can be seen in Figure 14. Here the
trendlines for the Democrat and Republican percentages are quite pronounced,
amounting to a difference of 8 percent from the halfway mark.
We divide the Fulton county data into a group of smaller precincts and larger
precincts. One group has precincts less than 308 and another larger than 308.
The total absentee ballots for the small group is 24,575, and the large group
is 120,029. The small group has a Democrat percentage of 85% and the large
group has a percentage of 77%, for a change of 8%. The fraud model is preferred
in this scenario again with probability of 100% to machine precision.
One might presume that small precincts generally favor Democrats over large
precincts, biasing the results. However take a closer look at the Libertarian
party results in Fulton county in Figure 15. The percentages are exactly what
we would expect if there were no bias in precinct size. The percentages bounce
around a mean, not trending in any direction.
So if there were a bias favoring the democrats in small precincts, we would
expect that to effect both the Republican and Libertarian totals. However it appears to only effect Republican totals, as if the Republican ballots were switched
over to Democrat in a higher percentage in the smaller precincts. Indeed if a
fixed number of ballots are switched in each district, it would have a larger
effect in the smaller districts and then show up as trend lines in these percentage plots. At a minimum the data suggests a statistical anomaly that is not
normally present in a fair election.

17

779

Exhibit 19 Page 17 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 14: Fulton County Absentee Ballots: Percentages vs Precinct Size

Figure 15: Fulton County Absentee Ballots: Libertarian Percentage vs Precinct
Size

18

780

Exhibit 19 Page 18 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 16: Michigan Vote Percentage vs Time

7

Michigan Analysis

We now due a time series analysis for Michigan. The data was culled from Edison
Research. We first show, Trump, Biden and 3rd party voting percentages vs
hours after the start of the election in Figure 16. The third party votes shows
the proper convergence to an asymptote that we would expect from the law of
large numbers. However the Trump and Biden percentages are vastly different
You can see large discrete jumps in the percentages as very large Biden ballot
dumps occur over time. You also see that the Biden percentages are mostly
always increasing after hour 27, which is statistically unlikely in a fair election.
Note also that almost a million of the ballots are received by hour 27, and
we use this as our starting point. At that point we have a total of 970,119
votes cast. At the end of 167 hours we have 5,531,222 votes cast. At our initial
point the Biden percentage is 38%, but the new ballots have a Biden percentage
totaling 53% as seen in Figure 17. The fraud model has posterior likelihood of
100% to machine precision.
For Michigan we compute the estimated amount of fraudulent Biden ballots
conservatively, assuming that the 50.5 percent seen at the end of the count
should have been the correct percentage among the newly added ballots. From
this and (4) we obtain an estimate of 237,140 fraudulent votes added for Biden.

19

781

Exhibit 19 Page 19 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

Figure 17: Biden Percentage Before and Added

References
[1] Peter Klimek, Yuri Yegorov, Rudolf Hanel, and Stefan Thurner. Statistical
detection of systematic election irregularities. 2, 2.1
[2] lulu Fries’dat and Anselmo Sampietro. An electoral system in crisis. http:
//www.electoralsystemincrisis.org/. 4.2

20

782

Exhibit 19 Page 20 of 20 Document 9-19
Case 2:20-cv-01771-PP Filed 12/03/20

It’IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

PLAINTIFF’S AMENDED MOTION FOR
TEMPORARY RESTRAINING ORDER AND PRELIMINARY INJUNCTION
TO BE CONSIDERED IN AN EXPEDITED MANNER

COMES NOW Plaintiff, William Feehan by and through his undersigned counsel, and moves
for a Temporary Restraining Order (TRO), or in the alternative, a preliminary injunction, to be
considered in an expedited manner. This Motion is submitted pursuant to FRCP 65 and Civil L.
R. 7.
In support of this Motion, Plaintiff has this day filed his Amended Complaint and supporting
Exhibits. Plaintiff further states and shows:
Standards for a TRO and preliminary injunction are the same. Local Lodge No. 1266, Int’l
Ass’n of Machinists & Aerospace Workers, AFL-CIO v. Panoramic Corp., 668 F.2d 276, 291 (7th
Cir. 1981). Plaintiff must make an initial showing that he (1) is likely to succeed on the merits, (2)
1

783

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 7 Document 10

has no adequate remedy at law, and (3) will suffer irreparable harm if injunctive relief is not
granted. See, e.g., Hodgkins ex rel Hodgkins v. Peterson, 355 F.3d 1048, 1054-55 (7th Cir.2004).
The Court then considers (4) whether the balance of harm to Plaintiff if the TRO not correctly
granted outweighs the harm to the defendant if the TRO is wrongly granted, and (5) the public
interest. Cooper v. Salazar, 196 F.3d 809, 813 (7th Cir.1999).
Plaintiff Will Suffer Irreparable Harm If a TRO Is Not Granted
1. Plaintiff brings this action and has filed his Motion for TRO to enjoin Defendants’
certification of the November 3, 2020, Presidential election in Wisconsin in order to prevent
irreparable harm to Plaintiff and lawful voters of Wisconsin and other states across the nation who
would suffer disenfranchisement of their election rights by improper and unlawful certification of
the Wisconsin election results in favor of Presidential candidate Joe Biden.
2. An unlawful certification in one state, like Wisconsin, will necessarily harm the State of
Wisconsin and all other states and their lawful voters by altering the Presidential election outcome,
undermining both confidence in and integrity of the election process.
3. Absent granting the TRO requested, Plaintiff and similarly situated lawful voters will suffer
irreparable harm because the conduct of the election and recount contrary to law undermines
election integrity, debases and dilutes their votes, and effectively disenfranchises them.
4. Further, any recalibration, reset, wiping, or other alteration or destruction of election data
or materials from voting machines, tabulations machines, or other election-related mechanisms,
servers, software, voting machines, tabulators, printers, portable media, logs, or processes, and any
alteration or destruction of ballot applications, ballot return envelopes, ballot images, paper ballots,
registration lists, poll lists, or any other “election materials” referenced in Wisconsin Statutes §
9.01(1)(b)11. related to the November 3, 2020 Wisconsin election, whether pursuant to § 7.23,

2

784

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 7 Document 10

Wisconsin Statutes, or otherwise, will make it impossible to conduct a valid inspection by
Plaintiff’s experts or others.
5. Plaintiff will be irreparably harmed if all such acts affecting election data or materials are
not immediately enjoined across the state of Wisconsin pursuant to 52 U.S.C. § 20701
(preservation of voting records) to prevent destruction or alteration of evidence essential to
individual and/or forensic examination and audit of the election computer systems and materials.
Plaintiff Is Likely to Prevail on the Merits
6. Plaintiff’s Amended Complaint and Motion present material dispositive issues which are
questions of law that may be resolved without factual investigation or determination.
7. Plaintiff is more likely to succeed on the merits of his claims than not due to substantial
and multiple violations of Wisconsin election laws, including counting of unlawfully cast ballots,
resulted in unfair advantage to some voters, discriminating against and denying equal protection
to Plaintiff and other lawful Wisconsin voters, effectively disenfranchising them of their lawful
rights of suffrage, all as provided in his Amended Complaint.
8. In further support is the WEC’s illegal certification of the Statement of Canvas by Chair,
Ann S. Jacobs, who directly violated the statutory guarantee of a 5 business day waiting period
pursuant to Wis. Stat. § 9.01(6), by failing to wait the required time period and rushed to certify
the canvas on the day it was completed November 30, 2020.
9. Governor Evers also illegally certified the Statement of Canvas that same day, thus
foreclosing any opportunity for a candidate to challenge the recount. Wis. Stat. § 7.70(5)(a),
explains “When a valid petition for recount is filed . . . the governor or commission may not issue
a certificate of election until the recount has been completed and the time allowed for filing an
appeal has passed . . . .”

3

785

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 7 Document 10

The Balance of Equities Favors Plaintiff
10. The political advantage to either Presidential candidate created by unlawful certification is
substantially less significant than the certification of an erroneous Presidential election result and
loss of confidence and distrust that will be generated within the public at large if certification is
not temporarily enjoined to consider the merits of Plaintiff’s allegations of statistical anomalies,
unlawful conduct of the election and recount, fraudulent manipulation of software and voting
machines employed to tabulate votes, and other unlawful conduct alleged in his Amended
Complaint.
11. Granting a TRO to halt the certification to permit consideration and determination of the
grave issues presented by Plaintiff will thus prevent an erroneous certification of the Presidential
election result and even further erosion of public confidence in the election’s integrity and
outcome.
Granting the TRO Is in the Public Interest
12. Wisconsin has a substantial obligation to its citizens and the rest of the nation to ensure
that its electors are properly elected and legitimately certified. The process by which Wisconsin
represents and pledges it electors must comply with state and federal constitutional and statutory
requirements and cannot be a rushed, perfunctory, same-day certification.
13. Nothing is more sacred to a representative republic than the integrity of its elections. A
TRO is essential to ensure the integrity of this and future elections for Wisconsin and the nation.

4

786

Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 7 Document 10

Respectfully submitted, this 3st day of December 2020.
LEAD COUNSEL FOR PLAINTIFF
/s Sidney Powell**
Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
**Application for admission forthcoming
Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

5

787

Case 2:20-cv-01771-PP Filed 12/03/20 Page 5 of 7 Document 10

NOTICE TO DEFENDANTS’ COUNSEL
Plaintiff certifies that upon filing of this Motion that he provided notice of this action by email
communication with Counsel for Defendants on December 4, 2020:

Wisconsin Elections Commission and Wisconsin Election Commissioners
Michael Murphy, Esq.
Assistant Attorney General
Special Litigation and Appeals Unit
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
(608) 266-5457
murphysm@doj.state.wi.us
Governor Tony Evers
Jeffrey A. Mandell, Esq.
Stafford Rosenbaum LLP
222 West Washington Avenue
Suite 900
P.O. Box 1784
Madison, Wisconsin 53701-1784
(608) 210-6303
jmandell@staffordlaw.com

6

788

Case 2:20-cv-01771-PP Filed 12/03/20 Page 6 of 7 Document 10

CERTIFICATE OF ELECTRONIC SERVICE
Pursuant to FRCP 65, this is to certify that upon filing of this Motion for Temporary
Restraining Order and Preliminary Injunction To Be Considered in an Expedited Manner with the
Court through the ECF PACER System, Plaintiff will provide simultaneous electronic service to
Defendants counsel as follows:

Wisconsin Elections Commission and Wisconsin Election Commissioners
Michael Murphy, Esq.
Assistant Attorney General
murphysm@doj.state.wi.us
Governor Tony Evers
Jeffrey A. Mandell, Esq.
Stafford Rosenbaum LLP
jmandell@staffordlaw.com

7

789

Case 2:20-cv-01771-PP Filed 12/03/20 Page 7 of 7 Document 10

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

PROPOSED BRIEFING SCHEDULE FOR
PLAINTIFF’S MOTION FOR TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION TO BE CONSIDERED IN AN EXPEDITED MANNER

Per the Court’s Order of December 2, 2020 and FRCP 65, Plaintiff’s counsel have
communicated with counsel for all Defendants and anticipate speaking with them further this
morning of December 3, 2020.
Plaintiff will propose the following briefing schedule and will advise the Court following
discussion with Defendants’ counsel.
• Friday, Dec. 4, 8:00 p.m.

Defendants file response to Motion for TRO.

• Saturday, Dec. 5, 8:00 p.m.

Plaintiff files reply to Defendants’ response.

• ______________________

Hearing as directed by the Court. Plaintiff proposes to
submit the matter on briefs without argument.
1

790

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 4 Document 10-1

Respectfully submitted, this 3st day of December 2020.
LEAD COUNSEL FOR PLAINTIFF
/s Sidney Powell**
Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
**Application for admission forthcoming
Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383

daneastman@me.com

2

791

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 4 Document 10-1

NOTICE TO DEFENDANTS’ COUNSEL
Plaintiff certifies that upon filing of this Motion that he provided notice of this action by email
communication with Counsel for Defendants on December 4, 2020:
Wisconsin Elections Commission and Wisconsin Election Commissioners
Michael Murphy, Esq.
Assistant Attorney General
Special Litigation and Appeals Unit
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
(608) 266-5457
murphysm@doj.state.wi.us
Governor Tony Evers
Jeffrey A. Mandell, Esq.
Stafford Rosenbaum LLP
222 West Washington Avenue
Suite 900
P.O. Box 1784
Madison, Wisconsin 53701-1784
(608) 210-6303
jmandell@staffordlaw.com

3

792

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 4 Document 10-1

CERTIFICATE OF ELECTRONIC SERVICE
Pursuant to FRCP 65, this is to certify that upon filing of this Proposed Briefing Schedule
with the Court through the ECF PACER System, Plaintiff will provide simultaneous electronic
service to Defendants counsel as follows:
Wisconsin Elections Commission and Wisconsin Election Commissioners
Michael Murphy, Esq.
Assistant Attorney General
murphysm@doj.state.wi.us
Governor Tony Evers
Jeffrey A. Mandell, Esq.
Stafford Rosenbaum LLP
jmandell@staffordlaw.com

4

793

Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 4 Document 10-1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE

PLEASE TAKE NOTICE that Jeffrey A. Mandell and Rachel E. Snyder of the law firm
of Stafford Rosenbaum LLP have been retained by defendant Governor Tony Evers in this
action. Please serve copies of all papers in this action on the undersigned at the address set forth
below.

Respectfully submitted this 3rd day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rnsyder@staffordlaw.com
Attorneys for Defendant, Governor Tony Evers

794

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 1 Document 11

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE

PLEASE TAKE NOTICE that Jeffrey A. Mandell and Rachel E. Snyder of the law firm
of Stafford Rosenbaum LLP have been retained by defendant Governor Tony Evers in this
action. Please serve copies of all papers in this action on the undersigned at the address set forth
below.

Respectfully submitted this 3rd day of December 2020.
/s/ Rachel E. Snyder
Jeffrey A. Mandell
Rachel E. Snyder
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rnsyder@staffordlaw.com
Attorneys for Defendant, Governor Tony Evers

795

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 1 Document 12

AO 458 (Rev. 06/09) Appearance of Counsel

UNITED STATES DISTRICT COURT
for the

Eastern District of Wisconsin
William Feehan

)
)
)
)
)

Plaintiff

v.
Wisconsin Election Commission

Defendant

Case No. 2:20-cv-1771

APPEARANCE OF COUNSEL
To:

The clerk of court and all parties of record
I am admitted or otherwise authorized to practice in this court, and I appear in this case as counsel for:
Plaintiff

Date: 12-3-20

.
/s/ Howard Kleinhendler

Attorney’s signature

Howard Kleinhendler
Printed name and bar number

369 Lexington Ave, NY, NY 10017
Address

howard@kleinhendler.com

E-mail address

(917) 793-1188
Telephone number

(732) 901-0832
FAX number

796

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 1 Document 13

797

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 2 Document 14

798

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 2 Document 14

799

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 14 Document 14-1

800

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 14 Document 14-1

801

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 14 Document 14-1

802

Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 14 Document 14-1

803

Case 2:20-cv-01771-PP Filed 12/03/20 Page 5 of 14 Document 14-1

804

Case 2:20-cv-01771-PP Filed 12/03/20 Page 6 of 14 Document 14-1

805

Case 2:20-cv-01771-PP Filed 12/03/20 Page 7 of 14 Document 14-1

806

Case 2:20-cv-01771-PP Filed 12/03/20 Page 8 of 14 Document 14-1

807

Case 2:20-cv-01771-PP Filed 12/03/20 Page 9 of 14 Document 14-1

808

Case 2:20-cv-01771-PP Filed 12/03/20 Page 10 of 14 Document 14-1

809

Case 2:20-cv-01771-PP Filed 12/03/20 Page 11 of 14 Document 14-1

810

Case 2:20-cv-01771-PP Filed 12/03/20 Page 12 of 14 Document 14-1

811

Case 2:20-cv-01771-PP Filed 12/03/20 Page 13 of 14 Document 14-1

812

Case 2:20-cv-01771-PP Filed 12/03/20 Page 14 of 14 Document 14-1

813

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 1 Document 14-2

814

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 5 Document 15

815

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 5 Document 15

816

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 5 Document 15

817

Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 5 Document 15

818

Case 2:20-cv-01771-PP Filed 12/03/20 Page 5 of 5 Document 15

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
MOTION TO REASIGN CASE PURSUANT TO CIVIL L.R. 3(b)
Defendant Tony Evers respectfully moves to have the foregoing case—Trump v. Wisconsin
Elections Commission, et al., No. 20-CV-1785—reassigned, as it is related to the instant action
under Civil Local Rule 3(b). While judicial efficiency and a desire to avoid conflicting opinions
underscore virtually every request to relate cases, that is especially true here with the federal safeharbor date approaching on December 8 and the meeting of the Electoral College on December
14. See 3 U.S.C. §§ 5, 7 and Wis. Stat. § 7.75.
Civil Local Rule 3(b) provides that the factors to be considered in determining whether the
actions are related include whether the actions: (i) arise from substantially the same transaction or
events; (ii) involve substantially the same parties or property; or (iii) involve the same patent,
trademark or copyright. It further provides that the judge to whom the action with the lower-case
number is assigned will resolve any dispute as to whether the actions are related.
Promptly upon learning of the Trump v. Wisconsin Elections Commission action late
yesterday evening, Defendant’s counsel prepared and filed a notice of related case. That notice,
which is attached hereto as Exhibit 1, explains that the Feehan and Trump actions arise form

819

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 2 Document 16

substantially the same transaction or events (the administration of the November 3, 2020
Presidential election), and involve substantially the same parties (the Wisconsin Elections
Commission, Ann S. Jacobs, Mark L. Thomsen, Marge Bostelmann, Dean Knudson, Robert F.
Spindell, Jr., and Governor Tony Evers are named defendants in both actions). 1 Both cases also
seek similar relief: To overturn the results of the recent election and in so doing deny more than
three million Wisconsinites of their fundamental right to vote.
Accordingly, the two cases are related within the meaning of Civil Local Rule 3(b), and
Defendant Evers respectfully requests that the latter-filed action be reassigned to this Court.
Respectfully submitted this 3rd day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rnsyder@staffordlaw.com
Attorneys for Defendant, Governor Tony Evers

WEC Commissioner Julie M. Glancey is inexplicably not named as a defendant in this case, which also
includes as defendants a number of other state and local officials.
1

2

820

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 2 Document 16

EXHIBIT 1

821

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 4 Document 16-1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION

DONALD J. TRUMP, Candidate for President of the
United States of America,
Plaintiff,
v.
THE WISCONSIN ELECTIONS COMMISSION, and its
members, ANN S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMANN, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official capacities,
SCOTT MCDONELL in his official capacity as the Dane
County Clerk, GEORGE L. CHRISTENSON in his
official capacity as the Milwaukee County Clerk,
JULIETTA HENRY in her official capacity as the
Milwaukee Election Director, CLAIRE WOODALLVOGG in her official capacity as the Executive Director
of the Milwaukee Election Commission, MAYOR TOM
BARRETT, JIM OWCZARSKI, MAYOR SATYA
RHODES-CONWAY, MARIBETH WITZEL-BEHL,
MAYOR CORY MASON, TARA COOLIDGE, MAYOR
JOHN ANTARAMIAN, MATT KRAUTER, MAYOR
ERIC GENRICH, KRIS TESKE, in their official
capacities; DOUGLAS J. LA FOLLETTE, Wisconsin
Secretary of State, in his official capacity, and TONY
EVERS, Governor of Wisconsin, in his official capacity.

Case No.:20-CV-1785

Defendants.

CIVIL L. R. 3(b) NOTICE OF RELATED CASE AND REQUEST
FOR ASSIGNMENT IN CONCERT WITH THAT RELATED CASE

TO THE UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
WISCONSIN AND TO THE PARTIES HEREIN AND THEIR ATTORNEYS OF RECORD:

822

Case
Case
2:20-cv-01771-PP
2:20-cv-01785 Filed
Filed 12/03/20
12/03/20 Page
Page 12 of
of 34 Document
Document 816-1

PLEASE TAKE NOTICE THAT, in accordance with Civil Local Rule 3(b), the
following action appears to be related to the above-entitled action: William Feehan, et al. v.
Wisconsin Elections Commission, et al., Case No. 2:20-CV-1771.
Civil Local Rule 3(b) provides that the factors to be considered in determining whether
the actions are related include whether the actions: (i) arise from substantially the same
transaction or events; (ii) involve substantially the same parties or property; or (iii) involve the
same patent, trademark or copyright. It further provides that the judge to whom the action with
the lower case number is assigned will resolve any dispute as to whether the actions are related.
The foregoing action arises from substantially the same transaction or events (the
administration of the November 3, 2020 Presidential election), and involves substantially the
same parties (the Wisconsin Elections Commission, Ann S. Jacobs, Mark L. Thomsen, Marge
Bostelmann, Dean Knudson, Robert F. Spindell, Jr., and Governor Tony Evers are named
defendants in both actions).1 Both cases also seek similar relief: To overturn the results of the
recent election and in so doing deny more than three million Wisconsinites of their fundamental
right to vote. Accordingly, this case is related within the meaning of Civil Local Rule 3(b).
PLEASE TAKE FURTHER NOTICE that this Notice of Related Case is also being
served on counsel for the parties in the case listed.
Respectfully submitted this 3rd day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
WEC Commissioner Julie M. Glancey is inexplicably not named as a defendant in this case, which also
includes as defendants a number of other state and local officials.
1

2

823

Case
Case
2:20-cv-01771-PP
2:20-cv-01785 Filed
Filed 12/03/20
12/03/20 Page
Page 23 of
of 34 Document
Document 816-1

Email: rnsyder@staffordlaw.com
Attorneys for Defendant, Governor Tony Evers

3

824

Case
Case
2:20-cv-01771-PP
2:20-cv-01785 Filed
Filed 12/03/20
12/03/20 Page
Page 34 of
of 34 Document
Document 816-1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN, et al.,
Plaintiffs,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS
COMMISSION, et al.,
Defendants.

NOTICE OF APPEARANCE

PLEASE TAKE NOTICE that Defendants, Wisconsin Elections
Commission, and its members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Dean Knutson, and Robert F. Spindell, Jr., in their official
capacities, appear in this matter by their attorneys, Joshua L. Kaul, Wisconsin
Attorney

General,

and

S.

Michael

Murphy,

Colin.

T.

Roth,

and

Jody J. Schmelzer, Assistant Attorneys General, and request that service of all
pleadings and other papers be made upon Assistant Attorneys General
Murphy, Roth, and Schmelzer at 17 West Main Street, Madison, Wisconsin,
53703, by first class mail at Post Office Box 7857, Madison, Wisconsin, 537077857, or via the ECF system for the United States District Court for the
Eastern District of Wisconsin.

825

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 2 Document 17

Dated this 3rd day of December 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
Attorneys for Wisconsin Elections
Commission and its members
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 264-6219 (Roth)
(608) 266-3094 (Schmelzer)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
rothct@doj.state.wi.us
schmelzerjj@doj.state.wi.us

826

2
Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 2 Document 17

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

PLAINTIFF’S OPPOSITION TO
DEFENDANT GOV. TONY EVERS’ REQUEST TO REASSIGN

Defendant Gov. Tony Evers has filed a motion to reassign Trump v. Wisconsin Elections
Commission, et al., Case No. 20-CV-1785 to this action under Civil Local Rule 3(b). Plaintiff
William Feehan opposes Defendant Evers’ as follows.
1) Defendant Evers’ Seeks to Nullify Through Delay Over 1.6 Million Lawful
Wisconsin Votes and Disenfranchise the Voters Who Cast Them.
With the College of Electors scheduled to meet December 8, there could never be a clearer
case of “justice delayed is justice denied.”
Defendant proposes a trivial, wooden application of a simple local rule designed for efficiency
to achieve exactly the opposite of its purpose, turning the rule on its head to deflect and fatally

827

1
Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 5 Document 18

delay consideration of the most monumental constitutional rights and issues that will ever come
before this Court, disenfranchising Plaintiff and 1.6 Million lawful Wisconsin voters in the process.
Defendant’s Motion to reassign is simply a transparent effort to clutter and bog down
Plaintiff’s action with multiple additional parties, procedural issues, and state law matters, the
purpose of which is to consume time, slow-walk Plaintiff’s action, and run out the clock.
The additional parties and issues are utterly unnecessary and distracting to consideration of
Plaintiff’s Amended Complaint and supporting Memorandum and determination of Plaintiff’s
TRO Motion.
Defendant Evers’ Motion should be summarily denied and the Court should immediately order
briefing and issue its decision no later than 5 p.m. Sunday evening, December 6 so that Plaintiff
may have even a few hours to prepare for and seek whatever further relief may be then available
in the one day left before the December 8 meeting of electors.
2) The Pleadings in Case No. 20-CV-1785 Do Not Relate in Any Way to the
Gravamen of Plaintiff’s Amended Complaint that Plaintiff and Over 1.6
Million Lawful Wisconsin Voters Were Disenfranchised by Massive Fraud,
Hacking, Ballot-Stuffing, and Ballot-Changing by Dominion and Other
Foreign and Domestic Actors Vehemently Antagonistic to the President.
The issues raised in the President’s action in Case No. 20-CV-1785 reflect federal aspects of
the state law issues raised in his Petition for Original Action just dismissed by the Wisconsin
Supreme Court, Trump v. Evers, 2020 AP 001971-OA.
While the President’s federal and state claims are obviously related to some of state law issues
and actions of state officials that are included in Plaintiff’s amended complaint, neither pleading
in those cases addresses the central issue of Plaintiff’s action here – foreign and domestic actors
programming, manipulating, hacking, and tampering with election equipment and software to
change votes and “elect” a candidate for which a majority of lawful Wisconsin voters did not cast
their ballots.

828

2
Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 5 Document 18

The detailed technical pleadings and proof alleged by Plaintiff1 are utterly absent in the
President’s pleadings, which do not relate whatsoever to the gravamen of Plaintiff’s Amended
Complaint that over 1.6 Million lawful Wisconsin votes were diluted and debased and that that
Plaintiff and the other voters who cost them were effectively disenfranchised by massive
electronic fraud, ballot-stuffing, and ballot-changing by Dominion and other foreign and
domestic actors vehemently antagonistic to the President.
3) Defendants’ Counsel Did Not Agree to or Propose a Briefing Schedule, so the
Court Should Immediately Schedule Briefing and Rule on Plaintiff’s TRO
Motion no later than 5 p.m. Sunday evening, December 6.
As ordered by the Court December 2, the Parties’ counsel met and conferred today regarding
a briefing schedule. However, Defendants refused to agree to the schedule proposed by Plaintiffs,
and in fact, refused to offer a proposed schedule of their own, stating that they were seeking
reassignment of Case No. 20-CV-1785, which they have now done.
In fact, when Plaintiff’s raised the issue of a stipulated TRO to preserve electronic and
physical data, materials, and equipment (voting machines in particular) for inspection by
Plaintiff’s experts, Defendants asserted that they have no control or influence whatsoever over
preservation of evidence by local jurisdictions and elections clerks, apparently implying that
Plaintiff must implead all 1,912 individual municipalities that conduct voting operations in order
to obtain relief.2

See Amended Complaint ¶¶ 6-17 (Dominion), 46-58 (statistical analysis by national experts), 60-99
(factual allegations regarding Dominion), 100-110 (statistical analysis), 131-137 (ballot fraud Dominion
System); and all federal Exhibits 1 - 19.
2
Cities, town and villages are individual municipalities charged with administering elections. Secs.
5.02(11), 5.25(2), Stats. According to the Wisconsin League of Municipalities and Wisconsin Dept. of
Health Services, there are approximately 1,912 individual such municipalities.
https://www.lwm-info.org/590/Facts-About-Wisconsin-Municipalities;
https://www.lwm-info.org/590/Facts-About-Wisconsin-Municipalities
1

829

3
Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 5 Document 18

CONCLUSION
Again, the additional parties, procedural issues and delay proposed by Defendants are utterly
unnecessary to consideration of Plaintiff’s Amended Complaint and supporting Memorandum and
determination of Plaintiff’s TRO Motion, and are designed solely to deny through delay Plaintiff’s
access to the courts and remedies to which he and other lawful Wisconsin voters are entitled.
Plaintiff therefore requests the Court to summarily deny Defendant Evers’ Motion,
immediately order briefing on Plaintiff’s TRO motion, and issue its decision no later than 5 p.m.
Sunday evening, December 6 so that Plaintiff may have a few hours to prepare for and seek
whatever further relief may be then available in the time left.
Respectfully submitted, this 3st day of December 2020.
LEAD COUNSEL FOR PLAINTIFF
/s Sidney Powell**
Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
**Application for admission forthcoming

830

4
Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 5 Document 18

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

831

5
Case 2:20-cv-01771-PP Filed 12/03/20 Page 5 of 5 Document 18

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
and DERRICK VAN ORDEN,
Plaintiffs,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
______________________________________________________________________________
ORDER DENYING MOTION TO REASSIGN CASE PURSUANT TO
CIVIL L.R. 3(b) (DKT. NO. 16)
______________________________________________________________________________
On December 1, 2020, plaintiffs William Feehan and Derrick Van Orden
filed the complaint in this case, naming as defendants the Wisconsin Elections
Commission, Ann S. Jacobs, Mark L. Thomsen, Marge Bostelman, Julie M.
Glancey, Dean Knudson, Robert F. Spindell, Jr. and Governor Tony Evers. Id.
at 1, 9. Two days later, before the defendants had answered, an amended
complaint was filed naming only Feehan as plaintiff; the amended complaint
names the same defendants. Dkt. No. 9.
On December 2, 2020, plaintiff Donald J. Trump filed a complaint in the
Eastern District of Wisconsin, naming as defendants the Wisconsin Elections
Commission, Ann S. Jacobs, Mark L. Thomsen, Marge Bostelman, Dean
Knudson, Robert F. Spindell, Jr., Scott McDonell, George L. Christenson,
Julietta Henry, Claire Woodall-Vogg, Tom Barrett, Jim Owczarski, Satya
Rhodes-Conway, Maribeth Witzel-Behl, Cory Mason, Tara Coolidge, John
1

832

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 4 Document 19

Antaramian, Matt Krauter, Eric Genrich, Kris Teske, Douglas J. La Follette and
Tony Evers. Trump v. Wisconsin Elections Commission, et al., Case No. 20-cv1785 (E.D. Wis.). Section VIII of the Form JS 44 Civil Cover Sheet for Case No.
20-cv-1785 is blank; the plaintiff did not identify any related cases. Id. at Dkt.
1-1. Trump v. Wisconsin Elections Commission, et al., Case No. 20-cv-1785
has been assigned to U.S. District Judge Brett H. Ludwig.
On December 3, 2020, Tony Evers—named as a defendant in both this
case and Case No. 20-cv-1785—filed in this case a motion to reassign Case No.
20-cv-1785 to this court, citing Civil Local Rule 3(b) (E.D. Wis.). Dkt. No. 16.
The defendant states that judicial efficiency and a desire to avoid conflicting
opinions motivate the motion, because the “federal safe-harbor date [is]
approaching on December 8 and the meeting of the Electoral College [is
scheduled] for December 14.” Id. at 1. The defendant refers the court to Civil
Local Rule 3(b) for the factors to be considered in determining whether actions
are related, noting that the rule provides that “the judge to whom the action
with the lower-case number is assigned will resolve any dispute as to whether
the actions are related.” Id.
The defendant asserts that promptly upon learning late in the day on
December 2, 2020 of the filing of Case No. 20-cv-1785, defense counsel in this
case prepared and filed a notice of related case. Id. He asserts that the notice
(attached to the motion) explains that Case No. 20-cv-1785 and this case arise
from substantially the same transaction or events—“the administration of the
November 3, 2020 Presidential election”—and involve substantially the same
2

833

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 4 Document 19

parties.1 Id. at 1-2. He asserts that both cases seek to overturn the results of
the recent election “and in so doing deny more than three million Wisconsinites
of their fundamental right to vote.” Id. at 2. The defendant concludes by
asserting that the two cases are related “within the meaning of Civil Local Rule
3(b)” and asks that the court reassign Case No. 20-cv-1785 to this court. Id.
The court will deny the motion. Civil L.R. 3 is titled “Commencing an
Action.” Rule 3(a) requires a party filing an action—the plaintiff—to file a Civil
Cover Sheet (the Form JS 44). Rule 3(b) says that “[w]here the Civil Cover Sheet
discloses a pending related civil action, the new civil action will be assigned to
the same judge.” The rule provides guidance to help the party who files the civil
cover sheet—the plaintiff—determine whether cases are related; it instructs the
plaintiff to consider whether the actions arise from substantially the same
transaction or events or whether they involve substantially the same parties or
property; it allows the plaintiff to identify on the Civil Cover Sheet any cases
the plaintiff believes are related. Once the plaintiff has identified related cases,
it provides that the clerk’s office “will” assign the related cases to the same
judge. It anticipates that some party other than the plaintiff might disagree
that the cases are related, and provides that if any such disputes arise, the
judge to whom the related cases are assigned will settle them. The rule does not
provide a mechanism for any party other than the plaintiff to file a motion

The two cases have different plaintiffs; among the twenty-two defendants in
Case No. 20-cv-1785 are seven of the eight defendants named in this case.
1

3

834

Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 4 Document 19

asking for reassignment of cases based on the party’s view that cases are
related.
Contrast Criminal Local Rule 13 (E.D. Wis.), titled “Reassignment of
Related Criminal Cases,” which does provide a mechanism for reassignment.
Rule 13(b) states that “[a] motion for reassignment based on relatedness may
be filed by any party to a case.” It requires the moving party to file the motion
with the judge to whom the lowest numbered case of the claimed related set is
assigned and requires that judge to decide the motion. Rule 13(a) lays out the
conditions precedent to reassignment. While Criminal L.R. 13 expressly
authorizes any party to file a motion seeking reassignment of cases that party
believes to be related, there is no equivalent civil local rule.
Civil L.R. 3(b) does not authorize the relief the defendant requests.
The court DENIES the defendant’s motion to reassign case pursuant to
Civil L.R. 3(b). Dkt. No. 16.
Dated in Milwaukee, Wisconsin this 3rd day of December, 2020.
BY THE COURT:
______________________________________
HON. PAMELA PEPPER
Chief United States District Judge

4

835

Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 4 Document 19

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 2:20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMANN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official capacity,
Defendants,
&.
DEMOCRATIC NATIONAL COMMITTEE,
Proposed Intervenor-Defendant.

NOTICE OF APPEARANCE OF CHARLES G. CURTIS, JR.
Attorney Charles G. Curtis, Jr. hereby enters his appearance as counsel for
Proposed Intervenor-Defendant Democratic National Committee.

836

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 2 Document 20

Attorney Curtis is an attorney in the law firm of Perkins Coie LLP, and his
office address and telephone number are:
33 East Main Street
Suite 201
Madison, WI 53703-3095
Tel: (608) 663-7460
Fax: (608) 663-7499
Email: CCurtis@perkinscoie.com
Attorney Curtis is licensed to practice law in the State of Wisconsin and is
admitted to practice before the District Court for the Eastern District of Wisconsin.
Dated: December 3, 2020

Respectfully Submitted,
By: s/ Charles G. Curtis
Charles G. Curtis, Jr.
SBN 1013075
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com

2

837

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 2 Document 20

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 2:20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official capacity,
Defendants,
&.
DEMOCRATIC NATIONAL COMMITTEE,
Proposed Intervenor-Defendant.

NOTICE OF APPEARANCE OF MICHELLE M. UMBERGER
Attorney Michelle M. Umberger hereby enters her appearance as counsel for
Proposed Intervenor-Defendant Democratic National Committee.

838

Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 2 Document 21

Attorney Umberger is an attorney in the law firm of Perkins Coie LLP, and
her office address and telephone number are:
33 East Main Street
Suite 201
Madison, WI 53703-3095
Tel: (608) 663-7460
Fax: (608) 663-7499
Email: MUmberger@perkinscoie.com
Attorney Umberger is licensed to practice law in the State of Wisconsin and
is admitted to practice before the District Court for the Eastern District of
Wisconsin.
Dated: December 3, 2020

Respectfully Submitted,
By: s/ Michelle M. Umberger
Michelle M. Umberger
SBN 1023801
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
mumberger@perkinscoie.com

2

839

Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 2 Document 21

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,

No. 2:20-cv-1771

v.
WISCONSIN ELECTIONS
COMMISSION, and its members ANN
S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMANN, JULIE M.
GLANCEY, DEAN HUDSON, ROBERT
F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

MOTION TO INTERVENE OF PROPOSED INTERVENOR-DEFENDANT
DEMOCRATIC SERVICES CORPORATION/DEMOCRATIC NATIONAL
COMMITTEE (THE “DNC”)
Proposed Intervenor-Defendant Democratic Services Corporation/Democratic
National Committee (“DNC”) respectfully moves for leave to intervene in this action
to defend its interests against the claims asserted by Plaintiffs. For the reasons
discussed in the accompanying memorandum in support, the DNC is entitled to
intervene in this case as a matter of right under Federal Rule of Civil Procedure
24(a)(2). In the alternative, the DNC requests permissive intervention pursuant to
Rule 24(b). In accordance with Rule 24(c), a proposed answer to Plaintiff’s complaint
is attached as Exhibit 1.
WHEREFORE, the DNC requests that the court grant it leave to intervene in
the above-captioned matter.
DATED: December 4, 2020

840

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 3 Document 22

Respectfully Submitted,
Seth P. Waxman*
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
David S. Lesser*
Jamie Dycus*
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com
jamie.dycus@wilmerhale.com

s/Michelle M. Umberger
Charles G. Curtis, Jr.
SBN 1013075
Michelle M. Umberger
SBN 1023801
Sopen B. Shah
SBN 1105013
Will M. Conley
SBN 1104680
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com
mumberger@perkinscoie.com
sshah@perkinscoie.com
wconley@perkinscoie.com

Matthew W. O’Neill
SBN 1019269
FOX, O’NEILL &
SHANNON, S.C.
622 North Water Street,
Suite 500
Milwaukee, WI 53202
(414) 273-3939
mwoneill@foslaw.com

Marc E. Elias*
John Devaney*
Zachary J. Newkirk*
PERKINS COIE LLP
700 Thirteenth St., N.W.,
Suite 800
Washington, D.C. 20005
(202) 654-6200
melias@perkinscoie.com
jdevaney@perkinscoie.com
znewkirk@perkinscoie.com

* Application for admission pending

Counsel for Proposed Intervenor-Defendant

841

-2Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 3 Document 22

CERTIFICATE OF SERVICE
I hereby certify that on Friday, December 4, 2020, I filed a copy of the
foregoing with the Clerk of the Court using the CM/ECF system, which will send
notification of such filing to all counsel of record.
/s/ Michelle M. Umberger
Counsel for Proposed Intervenor

842

-3Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 3 Document 22

Exhibit 1

843

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 24 Document 22-1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 2:20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMANN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official capacity,
Defendants,
&
DEMOCRATIC NATIONAL COMMITTEE,
Proposed Intervenor-Defendants.

PROPOSED INTERVENOR-DEFENDANT DEMOCRATIC NATIONAL COMMITTEE’S
PROPOSED ANSWER TO AMENDED COMPLAINT FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF

Proposed Intervenor-Defendant Democratic Services Corporation/Democratic National
Committee (the “DNC”), by and through its attorneys, answers Plaintiff’s amended complaint for
declaratory, emergency, and permanent injunctive relief (“complaint”) as set forth below. Unless
expressly admitted, each allegation in the complaint is denied, and DNC demands strict proof
thereof.

844

Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 24 Document 22-1

Introduction
1. Paragraph 1 of Plaintiff’s complaint contains mere characterizations, legal contentions,
conclusions, and opinions to which no response is required. To the extent a response is required,
DNC denies the allegations of Paragraph 1.
2. Paragraph 2 of Plaintiff’s complaint contains mere characterizations, legal contentions,
conclusions, and opinions to which no response is required. To the extent a response is required,
DNC denies the allegations of Paragraph 2.
3. Paragraph 3 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 3.
4. Paragraph 4 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 4.
5. Paragraph 5 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 5.
6.

Paragraph 6 of Plaintiff’s complaint contains mere characterizations, legal contentions,

conclusions, and opinions to which no response is required. To the extent a response is required,
DNC denies the allegations of Paragraph 6.
7.

Paragraph 7 of Plaintiff’s complaint contains mere characterizations, legal contentions,

conclusions, and opinions to which no response is required. To the extent a response is required,
DNC denies the allegations of Paragraph 7.
8.

Paragraph 8 of Plaintiff’s complaint contains mere characterizations, legal contentions,

conclusions, and opinions to which no response is required. To the extent a response is required,
1

845

Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 24 Document 22-1

DNC denies the allegations of Paragraph 8.
9.

Paragraph 9 of Plaintiff’s complaint contains mere characterizations, legal contentions,

conclusions, and opinions to which no response is required. To the extent a response is required,
DNC denies the allegations of Paragraph 9.
10. Paragraph 10 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 10.
11. Paragraph 11 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 11.
12. Paragraph 12 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 12.
13. Paragraph 13 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 13.
14. Paragraph 14 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 14.
15. Paragraph 15 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 15.
16. Paragraph 16 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
2

846

Case 2:20-cv-01771-PP Filed 12/04/20 Page 4 of 24 Document 22-1

response is required, DNC denies the allegations of Paragraph 16.
17. Denied.
Jurisdiction and Venue
18. In response to Paragraph 18 of Plaintiff’s complaint, DNC denies that this Court has
subject-matter jurisdiction.
19. In response to Paragraph 19 of Plaintiff’s complaint, DNC denies that this Court has
subject-matter jurisdiction.
20. DNC denies Paragraph 20 of Plaintiff’s complaint because the Court lacks subjectmatter jurisdiction.
21. DNC denies Paragraph 21 of Plaintiff’s complaint because the Court lacks subjectmatter jurisdiction.
22. DNC denies that venue is proper in the Eastern District of Wisconsin.
23. Paragraph 23 of Plaintiff’s complaint contains mere characterizations, legal
contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 22.
Parties
24. In response to paragraph 24 of Plaintiff’s complaint, Intervenor DNC lacks
knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied.
25. DNC admits that Paragraph 24 quotes from Carson v. Simon, 978 F.3d 1051, 1057
(8th Cir. 2020). The remainder of Paragraph 24 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the remaining allegations of
3

847

Case 2:20-cv-01771-PP Filed 12/04/20 Page 5 of 24 Document 22-1

Paragraph 25.
26. Denied.
27. DNC admits that the results of the November 2020 Wisconsin election on
November 30 indicated a plurality for President-Elect Biden. The remainder of Paragraph 27
of Plaintiff’s complaint contains mere characterizations, legal contentions, conclusions, and
opinions to which no response is required. To the extent a response is required, DNC denies
the remainder of allegations of Paragraph 27.
28.

DNC admits the allegations of Paragraph 28.

29.

DNC admits the allegations of Paragraph 29.

30.

DNC admits that the Wisconsin Elections Commission was created in 2015.

The remainder of Paragraph 30 contains mere characterizations, legal contentions,
conclusions, and opinions to which no response is required. To the extent a response is
required, DNC denies the remainder of allegations of Paragraph 30.
31.

In response to Paragraph 31, DNC admits that Wis Stat. § 7.20 governs the

establishment of municipal and county boards of election commissioners in cities over
500,000 population and counties over 750,000 population, respectively. The remainder of
Paragraph 31 of Plaintiff’s complaint contains mere characterizations, legal contentions,
conclusions, and opinions to which no response is required. To the extent a response is
required, DNC denies the remainder of allegations of Paragraph 31.
Statement of Facts
32.

DNC admits that Plaintiff purports to bring this action under 42 U.S.C. §§ 1983

and 1988.

The remainder of Paragraph 32 of Plaintiff’s complaint contains mere

characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 32.
4

848

Case 2:20-cv-01771-PP Filed 12/04/20 Page 6 of 24 Document 22-1

33.

DNC admits that Paragraph 33 of the complaint accurately quotes the United

States constitution. The remainder of Paragraph 33 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 33.
34.

Paragraph 34 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 34.
35.

DNC denies the allegations of Paragraph 35. The margin of victory for

President-Elect Biden was 20,682 votes.
36.

Denied.
I. “VIOLATIONS OF WISCONSIN ELECTION CODE”

37.

Paragraph 37 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 37.
38.

Paragraph 38 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 38.
39.

Paragraph 39 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 39.
40.

Paragraph 40 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 40.
41.

Paragraph 41 of Plaintiff’s complaint contains mere characterizations, legal
5

849

Case 2:20-cv-01771-PP Filed 12/04/20 Page 7 of 24 Document 22-1

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 41.
42.

Paragraph 42 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a response
is required, DNC denies the allegations of Paragraph 42. DNC specifically denies that any
Wisconsin voter in the 2020 Presidential Election claimed they were indefinitely confined in any
way inconsistent with the Wisconsin’s election laws.
43.

Paragraph 43 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 43.
44.

In response to paragraph 44 of Plaintiff’s complaint, Intervenor DNC lacks

knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied. In addition, Paragraph 44 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required.
45.

In response to paragraph 45 of Plaintiff’s complaint, Intervenor DNC lacks

knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied. In addition, Paragraph 45 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required.
II. “EXPERT WITNESS TESTIMONY”
46.

In response to paragraph 46 of Plaintiff’s complaint, Intervenor DNC lacks

knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied. In addition, Paragraph 46 of Plaintiff’s complaint contains mere
6

850

Case 2:20-cv-01771-PP Filed 12/04/20 Page 8 of 24 Document 22-1

characterizations, legal contentions, conclusions, and opinions to which no response is
required.
47.

Paragraph 47 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 47.
48.

Paragraph 48 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 48.
49.

Paragraph 49 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 49.
50.

Paragraph 50 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 50.
51.

In response to Paragraph 51 of Plaintiff’s complaint, Intervenor DNC lacks

knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied. In addition, Paragraph 51 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required.
52.

In response to Paragraph 52 of Plaintiff’s complaint, Intervenor DNC lacks

knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied. In addition, Paragraph 52 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required.
7

851

Case 2:20-cv-01771-PP Filed 12/04/20 Page 9 of 24 Document 22-1

53.

In response to Paragraph 53 of Plaintiff’s complaint, Intervenor DNC lacks

knowledge or information sufficient to form a belief as to the truth of these allegations, and
they are therefore denied. In addition, Paragraph 53 of Plaintiff’s complaint contains mere
characterizations, legal contentions, conclusions, and opinions to which no response is
required.
54.

Paragraph 54 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 54.
55.

Paragraph 55 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 55.
56.

Paragraph 56 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 56.
57.

Paragraph 57 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 57.
58.

Paragraph 58 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 58.
59.

Paragraph 59 of Plaintiff’s complaint contains mere characterizations, legal

contentions, conclusions, and opinions to which no response is required. To the extent a
response is required, DNC denies the allegations of Paragraph 46.

8

852

Case 2:20-cv-01771-PP Filed 12/04/20 Page 10 of 24 Document 22-1

III. “FACTUAL ALLEGATIONS REGARDING DOMINION VOTING SYSTEMS”
60.

DNC lacks sufficient information to confirm or deny the contents of Paragraph

60, and they are therefore denied. Paragraph 60 of Plaintiff’s complaint otherwise contains
mere characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 60.
61.

Paragraph

61

of

Plaintiff’s

complaint

otherwise

contains

mere

characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 61.
62.

Paragraph

62

of

Plaintiff’s

complaint

otherwise

contains

mere

characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 62.
63.

Paragraph

63

of

Plaintiff’s

complaint

otherwise

contains

mere

characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 63.
64.

DNC lacks sufficient information to confirm or deny the contents of Paragraph

64, and they are therefore denied. Paragraph 64 of Plaintiff’s complaint otherwise contains
mere characterizations, legal contentions, conclusions, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 64.
65.

Paragraph

65

of

Plaintiff’s

complaint

otherwise

contains

mere

characterizations, legal contentions, conclusions, and opinions to which no response is
required. Judge Amy Totenberg’s October 11, 2020 Order in the USDC N.D. Ga. case of
Curling, et al. v. Kemp, et. al, Case No. 1:17-cv-02989 Doc. No. 964, speaks for itself. To
the extent a response is required, DNC denies the allegations of Paragraph 65.
66.

Paragraph 66 of Plaintiff’s complaint attempts to quote, paraphrase, and/or
9

853

Case 2:20-cv-01771-PP Filed 12/04/20 Page 11 of 24 Document 22-1

interpret a judicial order. To the extent Plaintiff’s interpretation differs from the text of the
order, DNC denies the allegations. Paragraph 66 of Plaintiff’s complaint otherwise contains
mere legal contentions, characterizations, and opinions to which no response is required. To
the extent a response is required, DNC denies the allegations of Paragraph 66.
67.

Paragraph 67 of Plaintiff’s complaint attempts to quote, paraphrase, and/or

interpret a judicial opinion. To the extent Plaintiff’s interpretation differs from the text of the
opinion, DNC denies the allegations. Paragraph 67 of Plaintiff’s complaint otherwise
contains mere legal contentions, characterizations, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 67.
68.

Paragraph 68 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 68.
69.

Paragraph 69 of Plaintiff’s complaint attempts to quote, paraphrase, and/or

interpret a “security advisory.” To the extent Plaintiff’s interpretation differs from the text of
the “advisory,” DNC denies the allegations. Paragraph 69 of Plaintiff’s complaint otherwise
contains mere legal contentions, characterizations, and opinions to which no response is
required. To the extent a response is required, DNC denies the allegations of Paragraph 67.
70.

Paragraph 70 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 70. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 70, and
they are therefore denied.
71.

Paragraph 71 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
10

854

Case 2:20-cv-01771-PP Filed 12/04/20 Page 12 of 24 Document 22-1

required, DNC denies the allegations of Paragraph 71. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 71, and
they are therefore denied.
72.

Paragraph 72 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 72. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 72, and
they are therefore denied.
73.

Paragraph 73 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 73. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 73, and
they are therefore denied.
74.

Paragraph 74 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 74. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 74, and
they are therefore denied.
75.

Paragraph 75 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 75. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 75, and
they are therefore denied.
76.

Paragraph 76 of Plaintiff’s complaint contains mere legal contentions,
11

855

Case 2:20-cv-01771-PP Filed 12/04/20 Page 13 of 24 Document 22-1

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 76. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 76, and
they are therefore denied.
77.

Paragraph 77 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 77.
78.

DNC denies the allegations of Paragraph 78.

79.

Paragraph 79 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 79. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 79, and
they are therefore denied.
80.

Paragraph 80 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 80. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 80, and
they are therefore denied.
81.

Paragraph 81 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 81. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 81, and
they are therefore denied.
82.

Paragraph 82 of Plaintiff’s complaint contains mere legal contentions,
12

856

Case 2:20-cv-01771-PP Filed 12/04/20 Page 14 of 24 Document 22-1

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 82. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 82, and
they are therefore denied.
83.

Paragraph 83 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 83. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 83, and
they are therefore denied.
84.

Paragraph 84 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 84. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 84, and
they are therefore denied.
85.

Paragraph 85 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 85. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 85, and
they are therefore denied.
86.

Paragraph 86 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 86. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 86, and
they are therefore denied.
13

857

Case 2:20-cv-01771-PP Filed 12/04/20 Page 15 of 24 Document 22-1

87.

Paragraph 87 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 87. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 87, and
they are therefore denied.
88.

Paragraph 88 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 88. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 88, and
they are therefore denied.
89.

Paragraph 89 of Plaintiff’s complaint attempts to quote, paraphrase, and/or

interpret H.R. 2722. To the extent Plaintiff’s quotation differs from the text of the bill DNC
denies the allegation in that respect. Paragraph 69 of Plaintiff’s complaint otherwise contains
mere legal contentions, characterizations, and opinions to which no response is required. To
the extent a response is required, DNC denies the allegations of Paragraph 67.
90.

Paragraph 90 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 90. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 90, and
they are therefore denied.
91.

Paragraph 91 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 91. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 91, and
14

858

Case 2:20-cv-01771-PP Filed 12/04/20 Page 16 of 24 Document 22-1

they are therefore denied.
92.

Paragraph 92 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 92. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 92, and
they are therefore denied.
93.

DNC lacks knowledge or information sufficient to form a belief as to the truth

of the allegations in paragraph 93, and they are therefore denied.
94.

Paragraph 94 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 94. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 94, and
they are therefore denied.
95.

Paragraph 95 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 95. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 95, and
they are therefore denied.
96.

Paragraph 96 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 96. DNC lacks knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 96, and
they are therefore denied.
97.

Paragraph 97 of Plaintiff’s complaint contains mere legal contentions,
15

859

Case 2:20-cv-01771-PP Filed 12/04/20 Page 17 of 24 Document 22-1

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 97. DNC otherwise lacks knowledge or
information sufficient to form a belief as to the truth of the allegations in paragraph 97, and
they are therefore denied.
98.

Paragraph 98 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 98.
99.

DNC denies the allegations of Paragraph 99.
COUNT I

100.

DNC reincorporates all preceding paragraphs as if fully set forth herein.

101.

Paragraph 101 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
102.

Paragraph 102 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
103.

Paragraph 103 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
104.
105.

DNC denies the allegations of Paragraph 104.
Paragraph 105 of Plaintiff’s complaint contains mere legal conclusions to which no

response is required. To the extent a response is required, DNC denies the allegations of
Paragraph 105. DNC specifically denies that any Wisconsin voter in the 2020 Presidential
Election claimed they were indefinitely confined in any way inconsistent with the Wisconsin’s
election laws.
106.

Paragraph 106 of Plaintiff’s complaint contains mere legal conclusions to which no

response is required. To the extent a response is required, DNC denies the allegations of
16

860

Case 2:20-cv-01771-PP Filed 12/04/20 Page 18 of 24 Document 22-1

Paragraph 106. DNC specifically denies that any Wisconsin voter in the 2020 Presidential
Election claimed they were indefinitely confined in any way inconsistent with the Wisconsin’s
election laws.
107.

DNC lacks sufficient information to confirm or deny the allegations of

Paragraph 107 and therefore denies.
108.

Paragraph 108 of Plaintiff’s complaint contains mere legal contentions,

characterizations, and opinions to which no response is required. To the extent a response is
required, DNC denies the allegations of Paragraph 108. DNC otherwise lacks knowledge or
information sufficient to form a belief as to the truth of the allegations in paragraph 108, and
they are therefore denied.
109.

DNC denies the allegations in Paragraph 109.

110.

DNC denies the allegations in Paragraph 110.
COUNT II

111.

DNC reincorporates all preceding paragraphs as if fully set forth herein.

112.

Paragraph 112 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
113.

Paragraph 113 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
114.

Paragraph 114 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
115.

Paragraph 115 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
116.

Paragraph 116 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required. DNC denies the remaining allegations of Paragraph 116.
17

861

Case 2:20-cv-01771-PP Filed 12/04/20 Page 19 of 24 Document 22-1

117.

Paragraph 117 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required. DNC denies the remaining allegations of Paragraph 117.
118.

Paragraph 118 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required. DNC denies that Plaintiff is entitled to any relief.
119.

Paragraph 119 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required. DNC denies the remaining allegations of Paragraph 119.
120.

DNC denies that Plaintiff is entitled to any relief.

121.

Paragraph 121 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required. DNC denies the remaining allegations of Paragraph 121. DNC
denies that Plaintiff is entitled to any relief.
COUNT III
122.

DNC reincorporates all preceding paragraphs as if fully set forth herein.

123.

Paragraph 123 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
124.

Paragraph 124 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
125.

Paragraph 125 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
126.

Paragraph 126 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
127.

Paragraph 127 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
128.

Paragraph 128 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
18

862

Case 2:20-cv-01771-PP Filed 12/04/20 Page 20 of 24 Document 22-1

129.

DNC denies the allegations of Paragraph 129.

130.

DNC denies the allegations of Paragraph 130.
COUNT III

131.

DNC reincorporates all preceding paragraphs as if fully set forth herein.

132.

DNC denies the allegations of Paragraph 132.

133.

DNC denies the allegations of Paragraph 133.

134.

DNC denies the allegations of Paragraph 134.

135.

DNC denies the allegations of Paragraph 135.

136.

Paragraph 136 of Plaintiff’s complaint contains mere legal conclusions to

which no response is required.
137.

DNC denies the allegations of Paragraph 137.
Prayer for Relief

138-142. To the extent Plaintiff makes any factual allegations in paragraphs 138 to 142,
DNC denies such allegations. DNC denies that Plaintiff are entitled to any relief.
AFFIRMATIVE DEFENSES
DNC asserts the following affirmative defenses without accepting any burdens regarding
them and reserves the right to assert any further defenses that may become evident during the
pendency of this matter:
First Affirmative Defense
Plaintiff lacks standing to assert their claims.
Second Affirmative Defense
The Complaint fails, in whole or in part, to state a claim upon which relief can be granted.
Third Affirmative Defense
Plaintiff’s claims are barred by laches.
19

863

Case 2:20-cv-01771-PP Filed 12/04/20 Page 21 of 24 Document 22-1

Fourth Affirmative Defense
The Complaint is barred in whole or in part by the doctrine of abstention.
Fifth Affirmative Defense
The Plaintiff is estopped and/or equitably estopped from bringing some or all of the claims
asserted in the action.
Sixth Affirmative Defense
Plaintiff’s complaint fails to state a claim for relief that is plausible on its face.
Seventh Affirmative Defense
Plaintiff’s claims are barred by the doctrine of illegality.
Eighth Affirmative Defense
Plaintiff’s have waived the right to bring some or all of their claims.
Ninth Affirmative Defense
Plaintiff’s unclean hands preclude relief.
Tenth Affirmative Defense
Plaintiff’s claims are barred in whole or in part by the doctrine of res judicata.
PROPOSED INTERVENOR’S REQUEST FOR RELIEF
Having answered Plaintiff’s complaint, DNC requests that the Court:
1.

Deny Plaintiff is entitled to any relief;

2.

Dismiss Plaintiff’s complaint in its entirety with prejudice;

3.

Award DNC its costs and attorneys’ fees incurred in defending against Plaintiff’s
claims in accordance with 42 U.S.C. § 1988; and

4.

Grant such other and further relief as this Court deems just and proper.

20

864

Case 2:20-cv-01771-PP Filed 12/04/20 Page 22 of 24 Document 22-1

DATED: December 4, 2020
Seth P. Waxman*
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
David S. Lesser*
Jamie Dycus*
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com
jamie.dycus@wilmerhale.com

Respectfully Submitted,
s/ Michelle M. Umberger
Charles G. Curtis, Jr.
SBN 1013075
Michelle M. Umberger
SBN 1023801
Sopen B. Shah
SBN 1105013
Will M. Conley
SBN 1104680
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com
mumberger@perkinscoie.com
sshah@perkinscoie.com
wconley@perkinscoie.com

Matthew W. O’Neill
SBN 1019269
FOX, O’NEILL &
SHANNON, S.C.
622 North Water Street,
Suite 500
Milwaukee, WI 53202
(414) 273-3939
mwoneill@foslaw.com

Marc E. Elias*
John Devaney*
Zachary J. Newkirk*
PERKINS COIE LLP
700 Thirteenth St., N.W.,
Suite 800
Washington, D.C. 20005
(202) 654-6200
melias@perkinscoie.com
jdevaney@perkinscoie.com
znewkirk@perkinscoie.com

* Application for admission pending

Counsel for Proposed Intervenor-Defendant

21

865

Case 2:20-cv-01771-PP Filed 12/04/20 Page 23 of 24 Document 22-1

CERTIFICATE OF SERVICE
I hereby certify that on Friday, December 4, 2020, I filed a copy of the foregoing with the
Clerk of the Court using the CM/ECF system, which will send notification of such filing to all
counsel of record.
/s/ Michelle M. Umberger
Counsel for Proposed Intervenor

22

866

Case 2:20-cv-01771-PP Filed 12/04/20 Page 24 of 24 Document 22-1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,

No. 2:20-cv-1771

Plaintiff,
v.
WISCONSIN ELECTIONS
COMMISSION, and its members
ANN S. JACOBS, MARK L.
THOMSEN, MARGE
BOSTELMANN, JULIE M.
GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their
official capacities, GOVERNOR
TONY EVERS, in his official
capacity,
Defendants.

[PROPOSED] ORDER GRANTING PROPOSED INTERVENORDEFENDANT DEMOCRATIC NATIONAL COMMITTEE’S MOTION
TO INTERVENE
Before the Court is Proposed Intervenor-Defendant Democratic Services
Corporation/Democratic National Committee’s (“DNC”) Motion to Intervene.
Having reviewed the papers filed in support of and in opposition to (if any) this
motion, and being fully advised, the Court finds that that the DNC has
satisfied the elements of intervention as of right and the elements of
permissive intervention. Accordingly, the DNC is entitled to intervene in this
case, and the Court GRANTS the DNC’s motion.
It is so ORDERED.

867

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 2 Document 22-2

BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge

-2-

868

Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 2 Document 22-2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,

No. 2:20-cv-1771

v.
WISCONSIN ELECTIONS
COMMISSION, and its members ANN
S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMANN, JULIE M.
GLANCEY, DEAN HUDSON, ROBERT
F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

PROPOSED INTERVENOR-DEFENDANT DEMOCRATIC NATIONAL
COMMITTEE’S BRIEF IN SUPPORT OF MOTION TO INTERVENE

869

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 10 Document 23

I.

Introduction

Pursuant to Federal Rule of Civil Procedure 24, Proposed Intervenor
Defendant DNC Services Corporation/Democratic National Committee (“DNC”)
moves to intervene as a defendant in this lawsuit. Through this lawsuit, Plaintiffs
seek to undo Wisconsin’s lawful certification of the election results. They base their
requested relief on, among other things, speculation, questionable evidence, and
flawed legal theories. The DNC represents a diverse group of Democrats, including
elected officials, candidates, constituents, and voters. The extraordinary relief
Plaintiffs request would deprive the DNC’s members and constituents of their rights
to have their votes counted, undermine the electoral prospects of the DNC’s
candidates, and divert the DNC’s resources. The DNC’s intervention in this lawsuit
is necessary to protect those interests.
Pursuant to Rule 24(c) a conditional answer is attached to Exhibit 1. 1
II.
A.

Argument

The DNC is entitled to intervene as of right.
The DNC is entitled to intervene as of right because (1) its “motion is timely”;

(2) the DNC “has an interest relating to the property or transaction at issue in the
litigation”; and (3) “that interest may, as a practical matter, be impaired or impeded
by disposition of the case.” Driftless Area Land Conservancy v. Huebsch, 969 F.3d 742,
746 (7th Cir. 2020). Further, no “existing part[y] adequately represent[s]” the DNC’s
interests. Id. (emphasis omitted).
1.

The motion to intervene is timely.

First, this motion is timely. In considering whether a motion to intervene is
timely, courts consider, among other things, “(1) the length of time the intervenor
knew or should have known of his interest in the case” and “(2) the prejudice caused
The DNC intends to file a motion to dismiss. But to comply with Rule 24(c),
and in the event this Court denies the DNC’s forthcoming motion to dismiss, the DNC
has submitted a proposed, conditional answer.
1

870

-2Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 10 Document 23

to the original parties by the delay.” State v. City of Chicago, 912 F.3d 979, 984 (7th
Cir. 2019) (quoting Grochocinski v. Mayer Brown Rowe & Maw, LLP, 719 F.3d 785,
797 (7th Cir. 2013)).
In this case, the DNC is filing its motion to intervene just two days after
plaintiffs filed this lawsuit. The DNC has thus “move[d] to intervene as soon as it”
knew “its interests might be adversely affected by the outcome of the litigation.”
Heartwood, Inc. v. U.S. Forest Serv., Inc., 316 F.3d 694, 701 (7th Cir. 2003). No
defendant has yet filed a response to Plaintiffs’ complaint. And the DNC is prepared
to proceed in accordance with whatever schedule this Court sets. Thus, intervention
by the DNC will neither delay the resolution of this matter nor prejudice any party.
Under these circumstances, the motion is timely.
2.

The DNC has significant interests at stake in this litigation.

Second, the DNC has a “direct, significant, and legally protectable” interest in
this litigation that supports its intervention. Solid Waste Agency of N. Cook Cty. v.
U.S. Army Corps of Engineers, 101 F.3d 503, 506 (7th Cir. 1996). The rules for
mandatory intervention “do[] not define ‘interest.’” Lopez-Aguilar v. Marion Cty.
Sheriff's Dep’t, 924 F.3d 375, 391 (7th Cir. 2019). But, the “standing inquiry,” gives
content to its meaning, as the Seventh Circuit has “required ‘more than the minimum
Article III interest’ for intervention.’” Planned Parenthood of Wisconsin, Inc. v. Kaul,
942 F.3d 793, 798 (7th Cir. 2019) (quoting Flying J, Inc. v. Van Hollen, 578 F.3d 569,
571 (7th Cir. 2009)). At the same time, the Seventh Circuit has “interpreted
‘statements of the Supreme Court as encouraging liberality in the definition of an
interest.’” Lopez-Aguilar, 924 F.3d at 392 (quoting Meridian Homes Corp. v. Nicholas
W. Prassas & Co., 683 F.2d 201, 204 (7th Cir. 1982)).
The DNC has several significant, protectable interests at stake in this lawsuit,
each of which justify its intervention. First, Plaintiffs seek to disrupt the certification
of Wisconsin’s November 3, 2020 Presidential election results and to cast doubt on

871

-3Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 10 Document 23

the entitlement of the Democratic Party’s candidates for President and VicePresident to Wisconsin’s ten electoral votes. Interference with a political party’s
electoral prospects constitutes constitutional injury. See, e.g., Tex. Democratic Party
v. Benkiser, 459 F.3d 582, 586–87 (5th Cir. 2006) (holding that a “basis for the [Texas
Democratic Party’s] direct standing is harm to its election prospects” and that “a
political party’s interest in a candidate’s success is not merely an ideological
interest”); Owen v. Mulligan, 640 F.2d 1130, 1132 (9th Cir. 1981) (holding that “the
potential loss of an election” is sufficient injury to confer Article III standing). Courts
have permitted political parties to intervene on these grounds. See, e.g., Issa v.
Newsom, No. 220CV01044MCECKD, 2020 WL 3074351, at *3 (E.D. Cal. June 10,
2020) (granting intervention of state party where “Plaintiffs’ success on their claims
would disrupt the organizational intervenors’ efforts to promote the franchise and
ensure the election of Democratic Party candidates” (quoting Paher v. Cegavske, No.
320CV00243MMDWGC, 2020 WL 2042365, at *2 (D. Nev. Apr. 28, 2020))).
Further, Plaintiffs’ requested relief of de-certifying the election would have
significant disenfranchising effects on the DNC’s constituents. See Crawford v.
Marion Cty. Election Bd., 553 U.S. 181, 189 n.7 (2008) (agreeing with the unanimous
view of the Seventh Circuit that the Indiana Democratic Party had Article III
standing to challenge a voter identification law that risked disenfranchising its
members). This, in turn, would require the DNC to divert resources to safeguard the
timely certification of statewide results. See Crawford v. Marion Cnty. Election Bd.,
472 F.3d 949, 951 (7th Cir. 2007) (concluding that challenge law “injure[d] the
Democratic Party by compelling the party to devote resources” that it would not have
needed to devote absent new law), aff’d, 553 U.S. 181 (2008); see also Issa, 2020 WL
3074351, at *3 (granting intervention and citing this interest).
As a result, the DNC’s injuries are direct and significant and support its
intervention.

872

-4Case 2:20-cv-01771-PP Filed 12/04/20 Page 4 of 10 Document 23

3.

Denial of the motion to intervene would impair the DNC’s
ability to protect its interests.

Next, the DNC’s interests “may, as a practical matter, be impaired or impeded
by disposition of the case.” Driftless Area Land Conservancy, 969 F.3d at 746. When,
as here, a proposed intervenor has a protectable interest in the outcome of the
litigation, courts have “little difficulty concluding” that its interests will be impaired.
Citizens for Balanced Use v. Montana Wilderness Ass’n, 647 F.3d 893, 898 (9th Cir.
2011) (quoting California ex rel. Lockyer v. United States, 450 F.3d 436, 442 (9th Cir.
2006)). When considering this factor, courts examine the “practical consequences” of
denying intervention. Nuesse v. Camp, 385 F.2d 694, 702 (D.C. Cir. 1967); Advisory
Comm. to Fed. R. Civ. P. 24 1966 Amendment (“If an absentee would be substantially
affected in a practical sense by the determination made in an action, he should, as a
general rule, be entitled to intervene. . . .”).
As set forth above, there can be little doubt that if Plaintiffs were to succeed in
decertifying the election, the DNC “would be directly rather than remotely harmed.”
Flying J, Inc. v. Van Hollen, 578 F.3d 569, 572 (7th Cir. 2009). The relief Plaintiffs
seek—decertification of the election—would threaten the DNC’s electoral prospects,
disenfranchise the DNC’s members, and otherwise harm the DNC’s mission. Courts
have frequently permitted political parties to intervene in similar circumstances. See,
e.g., Paher v. Cegavske, No. 20-00243-MMD-WGC, 2020 WL 2042365, at *4 (D. Nev.
Apr. 28, 2020) (granting DNC intervention in election case regarding election
procedures and recognizing impairment of DNC’s interests); see also Issa, 2020 WL
3074351, at *3 (recognizing impairment of state party’s interests in lawsuit regarding
election procedures).
4.

The DNC’s interests are not adequately represented by the
existing parties.

Finally, the DNC’s interests are not adequately represented by the existing
parties. Driftless Area Land Conservancy, 969 F.3d at 747. The Seventh Circuit

873

-5Case 2:20-cv-01771-PP Filed 12/04/20 Page 5 of 10 Document 23

employs a tiered approach to “evaluating adequacy of representation.” Id. at 747.
“‘The default rule . . . is a liberal one.’” Id. (quoting Planned Parenthood of Wisconsin,
Inc., 942 F.3d at 799). It requires a ‘minimal” burden of showing that representation
“‘may be’ inadequate.” Id. (quoting Trbovich v. United Mine Workers of Am., 404 U.S.
528, 538 n.10 (1972)). A more stringent showing is required “if the interest of the
absentee is identical to that of an existing party, or if a governmental party is charged
by law with representing the absentee's interest.” Id. Ultimately, examination of this
factor “calls for a contextual, case-specific analysis, and resolving questions about the
adequacy of existing representation requires a discerning comparison of interests.”
Id. at 748.
In this case, the Defendants and the DNC have “interests and objectives that
are materially different” from each other. Id. at 749. The Defendants have an interest
in defending the actions of state officials. The DNC has different objectives: ensuing
that the valid ballot of every Democratic voter in Wisconsin is counted and
safeguarding the election of Democratic candidates. Ultimately, the DNC has specific
interests and concerns—including the Democratic Party’s overall electoral prospects
and use of their limited resources—that none of the current Defendants share.
Considering these material differences in objectives, no heightened burden of
showing of inadequacy is required. 2 Id. And the DNC has met the “minimal” burden
of showing that the Defendants’ “representation ‘may be’ inadequate.” Id. (quoting
Trbovich, 404 U.S. at 538 n.10).

Further, the Wisconsin Elections Commission and Governor are not “charged
by law with protecting the interests of the proposed intervenors,” the DNC. Planned
Parenthood of Wisconsin, Inc., 942 F.3d at 799; see also Wisconsin Educ. Assn Council
v. Walker, 705 F.3d 640, 659 (7th Cir. 2013) (finding that, in challenge to
constitutionality of statute related to unions, the Governor and other state officials
were “not charged by law” with protecting interests of employees seeking to intervene
in defense of the statute).
2

874

-6Case 2:20-cv-01771-PP Filed 12/04/20 Page 6 of 10 Document 23

Indeed, other courts have held that such divergent interests between
government defendants and others warrant intervention. See, e.g., Kleissler v. U.S.
Forest Serv., 157 F.3d 964, 972 (3d Cir. 1998) (recognizing that intervention may be
appropriate when “an agency’s views are necessarily colored by its view of the public
welfare rather than the more parochial views of a proposed intervenor”); see also, e.g.,
Issa, 2020 WL 3074351, at *3 (granting intervention and observing that the interests
of officials were to “properly administer election laws,” in contrast to the interests of
a state party, which included “ensuring their party members and the voters they
represent have the right to vote,” “advancing their electoral prospects,” and
“allocating their limited resources”); Paher, 2020 WL 2042365, at *3 (granting
intervention as of right where proposed intervenors, including the DNC, “may present
arguments about the need to safeguard [the] right to vote that are distinct from [state
defendants’] arguments”).
B.

The DNC is also entitled to permissive intervention.
If the Court does not grant intervention as a matter of right, the DNC

respectfully requests that the Court exercise its discretion to allow it to intervene
under Rule 24(b). The Court has discretion to grant a motion for permissive
intervention when the Court determines that: (1) the proposed intervenor’s claim or
defense and the main action have a “common question of law or fact,” and (2) the
intervention will not “unduly delay or prejudice the adjudication of the original
parties’ rights.” Fed. R. Civ. P. 24(b)(1)(B) and (b)(3); see also Planned Parenthood of
Wisconsin, Inc., 942 F.3d at 803 (discussing the district court’s broad discretion in
granting permissive intervention).
The DNC meets the criteria for permissive intervention. The motion to
intervene is timely and, given that this litigation is at a very early stage, intervention
will not unduly delay or prejudice the adjudication of the original parties’ rights.
Moreover, the DNC will inevitably raise common questions of law and fact, including

875

-7Case 2:20-cv-01771-PP Filed 12/04/20 Page 7 of 10 Document 23

challenging Plaintiffs’ claims that the lawful votes of Wisconsin voters should be
invalidated. The DNC would contribute to the complete development of the factual
and legal issues before this Court and is “uniquely qualified to represent the ‘mirrorimage’ interests” of the Plaintiff. See Democratic Nat'l Comm. v. Bostelmann, No. 20CV-249-WMC, 2020 WL 1505640, at *5 (W.D. Wis. Mar. 28, 2020) (denying
Republican National Committee’s motion to intervene as a matter of right but
granting permissive intervention because the RNC represented “the ‘mirror-image’
interests” of the plaintiffs).
III.

Conclusion

For the reasons stated above, this Court should grant the DNC’s motion to
intervene as a matter of right. In the alternative, this Court should exercise its
direction and grant the DNC permissive intervention.
DATED: December 4, 2020.

876

-8Case 2:20-cv-01771-PP Filed 12/04/20 Page 8 of 10 Document 23

Respectfully Submitted,
Seth P. Waxman*
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
David S. Lesser*
Jamie Dycus*
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
9amie.lesser@wilmerhale.com
9amie.dycus@wilmerhale.com

s/Michelle M. Umberger
Charles G. Curtis, Jr.
SBN 1013075
Michelle M. Umberger
SBN 1023801
Sopen B. Shah
SBN 1105013
Will M. Conley
SBN 1104680
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com
mumberger@perkinscoie.com
sshah@perkinscoie.com
wconley@perkinscoie.com

Matthew W. O’Neill
SBN 1019269
FOX, O’NEILL &
SHANNON, S.C.
622 North Water Street,
Suite 500
Milwaukee, WI 53202
(414) 273-3939
mwoneill@foslaw.com

Marc E. Elias*
John Devaney*
Zachary J. Newkirk*
PERKINS COIE LLP
700 Thirteenth St., N.W.,
Suite 800
Washington, D.C. 20005
(202) 654-6200
melias@perkinscoie.com
jdevaney@perkinscoie.com
znewkirk@perkinscoie.com

* Application for admission pending

Counsel for Proposed Intervenor-Defendant

877

-9Case 2:20-cv-01771-PP Filed 12/04/20 Page 9 of 10 Document 23

CERTIFICATE OF SERVICE
I hereby certify that on Friday, December 4, 2020, I filed a copy of the foregoing
with the Clerk of the Court using the CM/ECF system, which will send notification
of such filing to all counsel of record.
/s/ Michelle M. Umberger
Counsel for Proposed Intervenor

878

-10Case 2:20-cv-01771-PP Filed 12/04/20 Page 10 of 10 Document 23

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 2:20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official capacity,
Defendants,
&.
DEMOCRATIC NATIONAL COMMITTEE,
Proposed Intervenor-Defendant.

PROPOSED INTERVENOR-DEFENDANT DEMOCRATIC NATIONAL
COMMITTEE’S DISCLOSURE STATEMENT

The undersigned, counsel of record for Proposed Intervenor-Defendant
Democratic National Committee, furnishes the following in compliance with Civil L.
R. 7.1 and Fed. R. Civ. P. 7.1.
The Democratic National Committee has no parent companies or publicly
held companies with a 10% or greater ownership interest in it.

879

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 2 Document 24

Dated: December 3, 2020

Respectfully Submitted,

By: s/ Michelle M. Umberger
Michelle M. Umberger
SBN 1023801
Charles G. Curtis, Jr.
SBN 1013075
Sopen B. Shah
SBN 1105013
Will M. Conley
SBN 1104680
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com
mumberger@perkinscoie.com
sshah@perkinscoie.com
wconley@perkinscoie.com

Seth P. Waxman*
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
David S. Lesser*
Jamie Dycus*
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com
jamie.dycus@wilmerhale.com

Marc E. Elias*
John Devaney*
Zachary J. Newkirk*
PERKINS COIE LLP
700 Thirteenth St., N.W.,
Suite 800
Washington, D.C. 20005
(202) 654-6200
melias@perkinscoie.com
jdevaney@perkinscoie.com
znewkirk@perkinscoie.com

Matthew W. O’Neill
SBN 1019269
FOX, O’NEILL &
SHANNON, S.C.
622 North Water Street,
Suite 500
Milwaukee, WI 53202
(414) 273-3939
mwoneill@foslaw.com

Counsel for Proposed Intervenor-Defendant

* Application for admission pending

2

880

Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 2 Document 24

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
Plaintiff,
v.
WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
DEFENDANT GOVERNOR EVERS’S REPLY
TO PLAINTIFF’S PROPOSED BRIEFING SCHEDULE
On Thursday, December 3, 2020, Plaintiff William Feehan filed an Amended Motion for
Temporary Restraining Order and Preliminary Injunction To Be Considered in an Expedited
Manner (Dkt. 10), which included a Proposed Briefing Schedule (Dkt. 10-1). Several hours later,
counsel met and conferred about the proposed schedule but were unable to reach agreement.
Subsequent to that meet-and-confer session, one individual and one entity have moved to intervene
in this matter.
In the absence of an agreed schedule among the parties, Defendant Tony Evers proposes
the following expedited schedule:
Monday, Dec. 7 at 5:00 p.m.

Defendants/Intervenors oppositions to TRO motion1

1

Governor Evers’s brief will address not only the merits of Plaintiff’s motion, but also threshold
questions of justiciability.

881

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 2 Document 25

Tuesday, Dec. 8 at 5:00 p.m.

Plaintiff replies to opposition briefs

At the Court’s discretion

Court holds an evidentiary hearing and legal argument
(if deemed necessary)

This proposed schedule will significantly expedite resolution of Plaintiff’s claims, though Plaintiff
has no one to blame but himself for the time-crunch that he cites as justification for imposing
impossible deadlines. 2 This proposed schedule also seeks to balance the resources to be devoted
to this case with those necessary for litigating the parallel case filed in this Court by President
Trump3 and any state-court proceedings challenging the results of Wisconsin’s election ongoing 4
or that may arise.
Should the Court wish to hear more on this topic, counsel for Governor Evers will gladly
make themselves available at the Court’s convenience for a scheduling conference.
Respectfully submitted this 4th day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rsnyder@staffordlaw.com
Attorneys for Defendant, Governor Tony Evers
2

Plaintiff asserts that his motion needs to be adjudicated before the electors meet. (Dkt. 18 at *2)
Since that meeting is not until December 14, see 3 U.S.C. § 7 and Wis. Stat. § 7.75, the Governor’s proposed
schedule satisfies that measure.
3

Trump v. Wis. Elections Comm’n, et al., Case No. 2:2020-CV-1785 (E.D. Wis., filed December
2, 2020). Plaintiff in that case has also filed an emergency motion for preliminary injunctive relief. Judge
Ludwig is convening a telephonic scheduling conference at 1:00 p.m. on Friday, December 4, 2020, to set
deadlines in that matter.
4

Wis. Voters Alliance v. Wis. Elections Comm’n, et al., Case No. 2020AP1930-OA (Wis.) (petition
for original jurisdiction in the Wisconsin Supreme Court pending).

2

882

Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 2 Document 25

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS
COMMISSION, and its members ANN S.
JACOBS, MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

WISCONSIN ELECTIONS COMMISSION AND ITS MEMBERS’
RESPONSE TO PLAINTIFF’S PROPOSED BRIEFING SCHEDULE

Defendants Wisconsin Elections Commission and its members submit
this response to Plaintiff’s proposed briefing schedule on its motion for a
temporary restraining order or, in the alternative, a preliminary injunction.
Plaintiff proposes that Defendants be ordered to file a response to the motion
by Friday, December 4, at 8:00 p.m., that Plaintiff file a reply by Saturday,
December 5, at 8:00 p.m., and that this Court issue a decision by Sunday,
December 6, at 5:00 p.m. (Dkt. 10-1; 18.) To justify this incredibly short
timeline, Plaintiff asserts that he needs a decision by no later than December

883

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 3 Document 26

6 so that he can “prepare for and seek whatever further relief may be then
available in the one day left before the December 8 meeting of electors.”
(Dkt. 18:2.)
But, even if that meeting had any relevance to this lawsuit, no such
exigency would exist because the meeting of electors does not occur until
December 14, 2020. See Wis. Stat. § 7.75(1) (“The electors for president and
vice president shall meet at the state capitol following the presidential election
at 12:00 noon the first Monday after the 2nd Wednesday in December.”). In
any event, any exigency is of the Plaintiff’s own making, as they have chosen
to wait to bring their claims until eleventh hour.
A more reasonable timeframe for Defendants to respond to Plaintiffs’
voluminous filings—an amended complaint, exhibits, and TRO filings totaling
nearly 400 pages—would be as follows:
• Defendants file a response brief by Tuesday, December 8, at 11:59 p.m.
• Plaintiff files a reply brief by Wednesday, December 9, at 11:59 p.m.
That schedule, while still extremely abbreviated, would at least give
Defendants a reasonable time to respond to the amended complaint and
accompanying documents that Plaintiff filed the morning of December 3, a day
before he asks Defendants to file substantive responses.

884

2
Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 3 Document 26

Dated this 4th day of December, 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

885

3
Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 3 Document 26

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that Justin A. Nelson of the law firm of Susman Godfrey LLP
has been retained by defendant Governor Tony Evers in this action. Please serve copies of all
papers in this action on the undersigned at the address set forth below.
Respectfully submitted this 4th day of December 2020.
/s/ Justin A. Nelson
Justin A. Nelson
SUSMAN GODFREY L.L.P.
1000 Louisiana Street, Suite 5100
Houston, TX 77002
(713) 651-9366
jnelson@susmangodfrey.com
Attorneys for Defendant, Governor Tony Evers

886

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 1 Document 27

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that Davida Brook of the law firm of Susman Godfrey L.L.P.
have been retained by defendant Governor Tony Evers in this action. Please serve copies of all
papers in this action on the undersigned at the address set forth below.
Respectfully submitted this 4th day of December 2020.
/s/ Davida Brook
Davida Brook
SUSMAN GODFREY L.L.P.
1900 Avenue of the Stars
Suite 1900
Los Angeles, CA 90067
(310) 789-3100
dbrook@susmangodfrey.com
Attorneys for Defendant, Governor Tony Evers

887

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 1 Document 28

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.

ORDER GRANTING IN PART AND DEFERRING RULING IN PART ON
AMENDED MOTION FOR TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION TO BE HEARD IN AN EXPEDITED MANNER
(DKT. NO. 10)

At 10:30 a.m. on December 3, 2020, the plaintiff filed an “Amended
Motion For Temporary Restraining Order And Preliminary Injunction To Be
Considered In An Expedited Manner.” Dkt. No. 10. The amended motion seeks
a temporary restraining order or, in the alternative, a preliminary injunction,
“to be considered in an expedited manner.” Id. at 1. It states that the motion is
being submitted pursuant to Fed. R. Civ. P. 65 “and Civil L.R. 7.” Id.
The motion asserts that the plaintiff will suffer irreparable harm if the
court does not grant a temporary restraining order. Id. at 2. The plaintiff states
that he will suffer irreparable harm if various actions he describes “are not
immediately enjoined across the state of Wisconsin pursuant to 52 U.S.C.
§ 20701 (preservation of voting records)” to prevent destruction or alteration of
evidence. Id. at ¶5. He asserts that the amended complaint (Dkt. No. 9, filed

1

888

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 10 Document 29

the same day as this motion) and the motion present “material dispositive
issues which are questions of law that may be resolved without factual
investigation or determination.” Id. at ¶6.
The plaintiff attached to the motion a proposed briefing schedule. Dkt.
No. 10-1. The schedule indicates that the plaintiff’s counsel had conferred with
defense counsel (and planned to speak with them again later that day) and
anticipated proposing that the defendants file their response to the motion for
injunctive relief by 8:00 p.m. on Friday, December 4, 2020, that the plaintiff file
his reply by 8:00 p.m. on Saturday, December 5, 2020 and that the schedule
conclude with a “[h]earing as directed by the Court. Plaintiff proposes to submit
the matter on briefs without argument.” Id. at 1. Neither the amended motion
nor the briefing schedule indicated whether the plaintiff needed a decision from
the court by a date certain.
At 5:13 p.m. on December 3, the plaintiff filed a brief in opposition to
defendant Tony Evers’s motion to reassign Trump v. Wisconsin Elections
Commission, et al., Case No. 20-cv-1785, from U.S. District Court Judge Brett
H. Ludwig to this court. Dkt. No. 18. The brief stated that “[w]ith the College of
Electors scheduled to meet December 8, there could never be a clearer case of
‘justice delayed is justice denied.’” Id. at 1. The plaintiff stated that the court
should deny the motion to reassign and “immediately order briefing and issue
its decision no later than 5 p.m. Sunday evening, December 6 so that Plaintiff
may have even a few hours to prepare for and seek whatever further relief may

2

889

Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 10 Document 29

be then available in the one day left before the December 8 meeting of electors.”
Id. at 2.
The plaintiff reported that the parties had met and conferred regarding a
briefing schedule for the motion for injunctive relief, but that the defendants
had “refused to agree to the schedule proposed by Plaintiffs, and in fact,
refused to offer a proposed schedule of their own,” indicating that they would
be seeking reassignment of Case No. 20-cv-1785. Id. at 3. The plaintiff said the
defendants also indicated that they could not stipulate to a TRO “to preserve
electronic and physical data, materials, and equipment (voting machines in
particular) for inspection by Plaintiff’s experts” because the defendants said
they had “no control or influence whatsoever over preservation of evidence by
local jurisdictions and elections clerks.” Id. The plaintiff concluded the brief by
reiterating his request that the court immediately order briefing and that the
court issue its decision no later than 5:00 p.m. Sunday evening, December 6.
First thing on December 4, 2020, defendant Tony Evers responded to the
request for an expedited briefing schedule. Dkt. No. 25. The defendant noted
that although the plaintiff had asserted that the court needed to decide the
motion before the electors meet, that meeting was not scheduled until
December 14. Id. at 2 n.2. The defendant proposed an alternative schedule by
which the defendants would file their briefs in opposition to the motion for
injunctive relief by 5:00 p.m. on Monday, December 7; the plaintiff would file
his reply brief by 5:00 p.m. on Tuesday, December 8; and the court could

3

890

Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 10 Document 29

exercise its discretion regarding whether to hold an evidentiary hearing or hear
argument. Id. at 1-2.
Minutes later, defendants the Wisconsin Elections Commission and its
members filed their brief in opposition to the request for an expedited briefing
schedule. Dkt. No. 26. They, too, stated that the meeting of electors will not
take place until December 14, 2020. Id. at 26. They propose a schedule
whereby the defendants will file their opposition briefs to the motion for
injunctive relief by 11:59 p.m. on Tuesday, December 8, 2020 and the plaintiff
will file his reply brief by 11:59 p.m. on Wednesday, December 9, 2020. Id. at
2,
In seeking an expedited briefing schedule, the plaintiff’s December 3,
2020 amended motion for injunctive relief cites Civil Local Rule 7 (E.D. Wis.),
but identifies no subsection of that rule. Rule 7(b) gives a non-moving party
twenty-one days to respond to a motion and Rule 7(c) gives the moving party
fourteen days to reply. Given the plaintiff’s repeated use of the word “expedited”
and the briefing schedule he proposes, the court concludes that he is asking
the court for shorter turnaround time than that provided in Rules 7(b) and (c).
There is a provision of Civil L.R. 7 that allows a party to seek expedited
briefing. Civil L.R. 7(h), which allows a party to seek non-dispositive relief by
expedited motion if the party designates the motion as a “Civil L.R. 7(h)
Expedited Non-Dispositive Motion.” When the court receives a motion with that
designation, it may schedule the motion for a hearing or decide the motion on
the papers and may order an expedited motion schedule. Civil L.R. 7(h)(1). The
4

891

Case 2:20-cv-01771-PP Filed 12/04/20 Page 4 of 10 Document 29

rule limits such motions to three pages in length, requires the respondent to
file its three-page opposition memorandum within seven days unless the court
orders otherwise and allows the respondent to attach an affidavit or declaration
of no more than two pages. Civil L.R. 7(h)(2).
Although the plaintiff did not designate it as such, the court construes
the plaintiff’s request for the motion for injunctive relief to be heard in an
“expedited manner”—Dkt. No. 10—as a Civil L.R. 7(h) Expedited NonDispositive Motion for an Expedited Briefing Schedule. The court will grant that
motion (although it will not order the briefing schedule the plaintiff suggests).
The other part of the plaintiff’s motion seeks immediate temporary
injunctive relief—a temporary restraining order or a preliminary injunction. The
motion states that the amended complaint and the motion “present material
dispositive issues which are questions of law that may be resolved without
factual investigation or determination.” Dkt. No. 10 at 3. The plaintiff never has
requested a hearing, either in writing or by contacting chambers by phone with
the adverse parties on the line. The anticipated briefing schedule the plaintiff
attached to the amended motion for injunctive relief, while mentioning a
hearing “as directed by the Court,” states that the plaintiff proposes to “submit
the matter on briefs without argument.” Dkt. No. 10-1 at 1. In his brief in
opposition to a motion to reassign another case, the plaintiff proposes briefing
through the weekend and a ruling from this court on Sunday evening; because
court generally is not in session on weekends, the court deduces that the
plaintiff does not anticipate a hearing on the motion.
5

892

Case 2:20-cv-01771-PP Filed 12/04/20 Page 5 of 10 Document 29

The United States Supreme Court has held that injunctive relief is “an
extraordinary remedy that may only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” Winter v. Nat. Res. Defense Counsel, Inc.,
555 U.S. 7, 22 (2008) (citing Mazurek v. Armstrong, 520 U.S. 968, 972 (1997)).
Because it is an extraordinary remedy, injunctive relief never is awarded as of
right. Id. (citing Munaf v. Geren, 553 U.S. 674, 689-90 (2008)). Courts
considering requests for such extraordinary relief must, in every case, “balance
the competing claims of injury and must consider the effect on each party of
the granting or withholding of the requested relief.” Id. (quoting Amoco Prod.
Co. v. Gambell, 480 U.S. 531, 542 (1987)).
In this court’s experience it is unusual for a party seeking the
extraordinary remedy of preliminary injunctive relief to ask the court to issue a
decision on the pleadings, without presentation of evidence or argument. But
because that is what the plaintiff—the movant—has asked, the court will rule
on the pleadings.
As for the expedited briefing schedule, the schedule the plaintiff has
proposed severely limits the time available to the defendants to respond to his
pleadings and to the court to rule. The plaintiff created this limitation by
waiting two days to confer with defense counsel and by waiting until late
yesterday afternoon to mention a date by which it appears he seeks a ruling
from the court. The court disagrees that the plaintiff will be denied his right to
redress if the court does not rule by Sunday evening, December 6.

6

893

Case 2:20-cv-01771-PP Filed 12/04/20 Page 6 of 10 Document 29

The plaintiff stated in his opposition brief to the motion to reassign that
time was of the essence because the College of Electors was scheduled to meet
December 8. Dkt. No. 18 at 1. That is not correct. According to an October 22,
2020 white paper from the Congressional Research Service titled “The Electoral
College: A 2020 Presidential Election Timeline,” the electors will meet and vote
on December 14, 2020. https://crsreports.congress.gov/product/pdf/IF/
IF11641.
December 8, 2020—six days prior to the date the College of Electors is
scheduled to meet—is the “safe harbor” deadline under 3 U.S.C. §5. That
statute provides that if a state has provided, “by laws enacted prior to the day
fixed for the appointment of the electors, for its final determination of any
controversy or contest concerning the appointment of all or any of the electors
of such State,” and that final determination has been made “at least six days
before the time fixed for the meeting of the electors,” that determination—if it is
made under the state’s law at least six days prior to the day the electors meet—
“shall be conclusive, and shall govern in the counting of the electoral votes as
provided in the Constitution . . . .” Wisconsin has enacted such a law. It is Wis.
Stat. §9.01. That statute provides for an aggrieved candidate to petition for a
recount. It provides specific procedures for the recount, as well as appeal to the
circuit court and the court of appeals. Wis. Stat. §9.01(11) states that it is “the
exclusive judicial remedy for testing the right to hold an elective office as the
result of an alleged irregularity, defect or mistake committed during the voting
or canvassing process.”
7

894

Case 2:20-cv-01771-PP Filed 12/04/20 Page 7 of 10 Document 29

It appears, therefore, that December 8 is a critical date for resolution of
any state court litigation involving an aggrieved candidate who is contesting the
outcome of an election. The state courts1 either will or will not resolve
allegations of violations of Wis. Stat. §9.01 by the December 8, 2020 “safe
harbor” deadline. The plaintiff has not explained why it is necessary for this
federal court to grant or deny the injunctive relief he seeks—orders requiring
the defendants to de-certify the election results; enjoining defendant Evers
from transmitting certified election results to the Electoral College; requiring
defendant Evers to transmit certified election results stating that President
Donald Trump is the winner of the election; seizing and impounding voting
machines, ballots and other election materials; requiring production of security
camera recordings for voting facilities—before the safe harbor deadline for state
courts to resolve alleged violations of Wis. Stat. §9.01.
Because the electors do not meet and vote until December 14, 2020, the
court will impose a less truncated briefing schedule than the one the plaintiff
proposes, to give the defendants slightly more time to respond. The court will
require the defendants to file their opposition brief to the Plaintiff’s Amended
Motion for Temporary Restraining Order and Preliminary Injunction to be
Considered in an Expedited Manner (Dkt. No. 10) by 5:00 p.m. on Monday,
December 7, 2020. The court will require the plaintiff to file his reply brief in
support of the Plaintiff’s Amended Motion for Temporary Restraining Order and
The plaintiff has alleged in this federal suit that the defendants violated the
“Wisconsin Election Code.” Dkt. No. 9 at 11. This court has made no
determination regarding whether it has jurisdiction to resolve that claim.
1

8

895

Case 2:20-cv-01771-PP Filed 12/04/20 Page 8 of 10 Document 29

Preliminary Injunction to be Considered in an Expedited Manner (Dkt. No. 10)
by 5:00 p.m. on Tuesday, December 8, 2020.
The court directs the parties’ attention to Civil L.R. 7(f), which provides
that memoranda in opposition to motions are limited to thirty pages and reply
briefs in support of motions are limited to fifteen pages.
Finally, an administrative note: On December 2, 2020 a document was
docketed as a notice of appearance for lead counsel Sidney Powell. Dkt. No. 8.
The document is blank (except for the designation of the court); the court does
not have a completed notice of appearance on file for Attorney Powell.
The court GRANTS the plaintiff’s amended motion to the extent that it is
a Civil L.R. 7(h) Expedited Non-Dispositive Motion for an Expedited Briefing
Schedule. Dkt. No. 10.
The court ORDERS that the defendants’ opposition brief to the Plaintiff’s
Amended Motion for Temporary Restraining Order and Preliminary Injunction
to be Considered in an Expedited Manner (Dkt. No. 10) by must be filed by
5:00 p.m. on Monday, December 7, 2020.
The court ORDERS that the plaintiff’s reply brief in support of the
Plaintiff’s Amended Motion for Temporary Restraining Order and Preliminary
Injunction to be Considered in an Expedited Manner (Dkt. No. 10) must be filed
by 5:00 p.m. on Tuesday, December 8, 2020.
The court DEFERS RULING on the amended motion to the extent that it

9

896

Case 2:20-cv-01771-PP Filed 12/04/20 Page 9 of 10 Document 29

asks the court to issue a temporary restraining order or a preliminary
injunction.
Dated in Milwaukee, Wisconsin this 4th day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

10

897

Case 2:20-cv-01771-PP Filed 12/04/20 Page 10 of 10 Document 29

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE

PLEASE TAKE NOTICE that Stephen L. Shackelford, Jr. of the law firm of Susman
Godfrey L.L.P. has been retained by defendant Governor Tony Evers in this action. Please serve
copies of all papers in this action on the undersigned at the address set forth below.
Respectfully submitted this 4th day of December 2020.
/s/ Stephen L. Shackelford, Jr.
Stephen L. Shackelford Jr.
SUSMAN GODFREY L.L.P.
1301 Avenue of the Americas, 32nd Fl.
New York, NY 10019
212-336-8330
sshackelford@susmangodfrey.com
Attorneys for Defendant, Governor Tony Evers

898

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 1 Document 30

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE

PLEASE TAKE NOTICE that Richard A. Manthe of the law firm of Stafford Rosenbaum
LLP has been retained by defendant Governor Tony Evers in this action. Please serve copies of
all papers in this action on the undersigned at the address set forth below.
Respectfully submitted this 4th day of December 2020.
/s/ Richard A. Manthe
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rnsyder@staffordlaw.com
Email: rmanthe@staffordlaw.com
Attorneys for Defendant, Governor Tony Evers

899

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 1 Document 31

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
v.

Plaintiff,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE

PLEASE TAKE NOTICE that Paul M. Smith of the Campaign Legal Center has been
retained by defendant Governor Tony Evers in this action. Please serve copies of all papers in this
action on the undersigned at the address set forth below.
Respectfully submitted this 4th day of December 2020.
/s/ Paul M. Smith
Paul M. Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, D.C. 20005
Telephone: 202-736-2200
Email: psmith@campaignlegalcenter.org
Attorneys for Defendant, Governor Tony Evers

900

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 1 Document 32

901

902

903

904

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
v.

Plaintiff,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
DEFENDANT GOVERNOR EVERS’S MOTION REQUESTING LEAVE TO FILE AN
OVERSIZED MEMORANDUM
Earlier this afternoon, the Court issued an order granting in part Plaintiff’s “Amended
Motion for Temporary Restraining Order and Preliminary Injunction To Be Considered in an
Expedited Manner.” The Court’s order establishes a briefing schedule on the merits of Plaintiff’s
request for injunctive relief, and it specifically reminds the parties of Civil Local Rule 7(f), which
sets a default page limit of 30 pages for briefs supporting or opposing most motions: “No
memorandum exceeding the page limitations may be filed unless the Court has previously granted
leave to file an oversized memorandum.” (emphasis added).
Defendant Governor Evers intends both to oppose Plaintiff’s motion and to argue in
support of a motion to dismiss Plaintiff’s complaint. Governor Evers plans to address both motions
in one brief. That approach will be more efficient for all parties and the Court. To facilitate this
approach and to increase efficiency, Governor Evers respectfully requests, pursuant to Civil Local
Rule 7(f), that the Court grant leave to file an oversized consolidated memorandum, not to exceed
forty-five pages. Counsel will endeavor not to use the full amount of space unnecessarily.

905

Respectfully submitted this 4th day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rnsyder@staffordlaw.com
Email: rmanthe@staffordlaw.com
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana Street
Suite 5100
Houston, TX 77002
(713) 651-9366
jnelson@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th Street NW
Suite 400
Washington, DC 20005
(202) 736-2200
psmith@campaignlegalcenter.org
Attorneys for Defendant, Governor Tony Evers

2

906

AO 458 (Rev. 06/09) Appearance of Counsel

UNITED STATES DISTRICT COURT
for the

Eastern District of Wisconsin
WILLIAM FEEHAN, DERRICK VAN ORDEN
Plaintiff

v.

WISCONSIN ELECTIONS COMMISSION,
S Defendant
Atta hm

)
)
)
)
)

Case No.

APPEARANCE OF COUNSEL
To:

The clerk of court and all parties of record
I am admitted or otherwise authorized to practice in this court, and I appear in this case as counsel for:
.

Date:

Attorney’s signature

Printed name and bar number

Address

E-mail address

Telephone number

FAX number

Print

907

Save As...

Reset

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
______________________________________________________________________________
ORDER ALLOWING JAMES GESBECK TO FILE AN AMICUS BRIEF
______________________________________________________________________________
The plaintiff’s amended complaint alleges that the 2020 election process
“is so riddled with fraud, illegality, and statistical impossibility that this Court,
and Wisconsin’s voters, courts, and legislators, cannot rely on, or certify, any
numbers resulting from this election.” Dkt. No. 9 at ¶5. It states that the court
“must set aside the results of the 2020 General Election and grant the
declaratory and injunctive relief requested herein.” Id.
The amended complaint first asserts that the election software and
hardware used by defendant the Wisconsin Elections Commission were subject
to hacking and manipulation and that “Wisconsin officials” disregarded widely
reported concerns to this effect in utilizing the hardware and software. Id. at
¶¶6-13, 52-99. Next, it asserts that the Wisconsin Elections Commission
issued improper guidance to clerks and election officials in violation of
Wisconsin law. Id. at ¶¶14, 37-45. Third, it alleges that mail-in ballots either
were lots or were fraudulently recorded for voters who did not request them. Id.
1

908

Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 6 Document 37

at ¶¶46-50. Fourth, it asserts that voters who were ineligible to vote because
they were registered in other states nonetheless voted in Wisconsin. Id. at ¶51.
The plaintiff requests the following relief:
1.
An order directing Governor Evers and the Wisconsin
Elections Commission to de-certify the election results;
2.
An order enjoining Governor Evers from transmitting the
currently certified election results [to] the Electoral College;
3.
An order requiring Governor Evers to transmit certified
election results that state that President Donald Trump is the
winner of the election;
4.
An immediate temporary restraining order to seize and
impound all servers, software, voting machines, tabulators, printers,
portable media, logs, ballot applications, ballot return envelopes,
ballot images, paper ballots, and all “election materials” referenced
in Wisconsin Statutes § 9.01(1)(b)11. related to the November 3,
2020 Wisconsin election for forensic audit and inspection by the
Plaintiff;
5.
An order that no votes received or tabulated by machines that
were not certified as required by federal and state law be counted;
6.
A declaratory judgment declaring that Wisconsin’s failed
system of signature verification violates the Electors and Elections
Clause by working a de facto abolition of the signature verification
requirement;
7.
A declaratory judgment declaring that currently certified
election results violate the Due Process Clause, U.S. CONST.
Amend. XIV;
8.
A declaratory judgment declaring that mail-in and absentee
ballot fraud must be remedied with a Full Manual Recount or
statistically valid sampling that properly verifies the signatures on
absentee ballot envelopes and that invalidates the certified results if
the recount or sampling analysis shows a sufficient number of
ineligible absentee ballots were counted;
9.
A declaratory judgment declaring absentee ballot fraud
occurred in violation of Constitutional rights, Election laws and
under state law;
2

909

Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 6 Document 37

10. A permanent injunction prohibiting the Governor and
Secretary of State from transmitting the currently certified results
to the Electoral College based on the overwhelming evidence of
election tampering;
11. Immediate production of 48 hours of security camera
recordings of all voting central count facilities and processes in
Milwaukee and Dane Counties for November 3, 2020 and November
4, 2020.
Id. at ¶142.
Two days after the complaint was filed, the court received a motion to
intervene as a defendant from James Gesbeck. Dkt. No. 14. Mr. Gesbeck stated
that he is a Wisconsin citizen who voted in the 2020 general election in
Wisconsin. Dkt. No. 15 at 1. He indicated that he voted in Dane County via
absentee ballot. Id. at 2. He asserted that if the court were to grant the
plaintiff’s request to decertify the election results and order defendant Evers to
transmit certified election results stating that President Donald Trump is the
winner of the election, it would “disregard the results of the 2020 General
Election in Wisconsin in which [his] vote was cast.” Id. at 3. He stated that a
“court order directing the outcome of the election would disenfranchise [him]
by not counting [his] vote, nor the votes of millions of people.” Id. Mr. Gesbeck
also said that his interest was in defending his right to vote, and that none of
the defendants are tasked with defending that right and thus cannot defend his
interests. Id. Mr. Gesbeck argued that he is entitled to intervention as of right
but asserts in the alternative that he meets the standard for permissive
intervention. Id. at 4.

3

910

Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 6 Document 37

Earlier on December 3, the court had received from the plaintiff an
amended motion for injunctive relief and request for an expedited briefing
schedule. Dkt. No. 10. It appears Mr. Gesbeck—who, while he is an attorney, is
not admitted to practice before this court and is not an electronic filer (dkt. no.
10 at 1 and n.3)—was not aware of that motion at the time he filed his motion
to intervene. When he became aware of that motion, and realized that the court
might take briefing and reach the merits of the plaintiff’s amended motion for
injunctive relief before it ruled on his motion to intervene, Mr. Gesbeck filed a
Civil Local Rule 7(h) (E.D. Wis.) expedited, non-dispositive motion to intervene.
Dkt. No. 33. He asked the court to rule on his motion by 5:00 p.m. on Friday,
December 4 so that he could file a brief in opposition to the plaintiff’s amended
motion for injunctive relief. Id. at 3.
The court received Mr. Gesbeck’s Civil L.R. 7(h) motion at 4:12 p.m. on
Friday, December 4. The court could not rule on his motion by 5:00 p.m. on
December 4. The plaintiff has not responded (and Civil L.R. 7(h) does anticipate
a non-moving party having an opportunity to respond). While Mr. Gesbeck
asserts that he is entitled to intervene under Fed. R. Civ. P. 24(a) (or, in the
alternative, that he qualifies for permissive intervention under Rule 24(b)), the
court must consider issues such as whether the current defendants adequately
represent his interests and whether he has standing. See, e.g., Flying J., Inc. v.
Van Hollen, 578 F.3d 569, 571 (7th Cir. 2009) (“[T]he interest required by
Article III is not enough by itself to allow a person to intervene in a federal suit
and thus become a party to it.”); Planned Parenthood of Wis., Inc. v. Kaul, 942
4

911

Case 2:20-cv-01771-PP Filed 12/04/20 Page 4 of 6 Document 37

F.3d 793, 803 n.5 (7th Cir. 2019) (noting that the Seventh Circuit has not yet
addressed whether permissive intervention requires standing if the existing
parties have a live case or controversy).
While the Federal Rules of Civil Procedure do not provide for the filing of
amicus curiae briefs in the district court (as opposed to Fed. R. App. P. 29,
which governs such filings in federal appellate courts), some district courts
have held that they have inherent authority to appoint an amicus curiae—a
“friend of the court.” See, e.g., Recht v. Justice, No. 5:20-CV-90, 2020 WL
6109426, at *1 (N.D. W. Va. June 9, 2020); Bounty Minerals, LLC v.
Chesapeake Exploration, LLC, No. 5:17cv1695, 2019 WL 7048981, at *10 (N.D.
Ohio Dec. 23, 2019); Jin v. Ministry of State Security, 557 F. Supp. 2d 131,
136 (D. D. C. 2008); NGV Gaming, Ltd. v. Upstream Point Molate, LLC, 355 F.
Supp. 2d 1061, 1067 (N.D. Cal. 20005).
“The term ‘amicus curiae’ means friend of the court, not friend of a
party.” Ryan v. Commodity Futures Trading Com’n, 125 F.3d 1062, 1063 (7th
Cir. 1997) (citing United States v. Michigan, 940 F.2d 143, 164-65 (6th Cir.
1991)). “An amicus brief should normally be allowed when a party is not
represented competently or is not represented at all, when the amicus has an
interest in some other case that maybe affected by the decision in the present
case . . . or when the amicus has unique information or perspective that can
help the court beyond the help that the lawyers for the parties are able to
provide.” Id. (Citations omitted.)

5

912

Case 2:20-cv-01771-PP Filed 12/04/20 Page 5 of 6 Document 37

Because the court cannot rule on Mr. Gesbeck’s motion to intervene
prior to the deadline for the defendants to oppose the plaintiff’s amended
motion for injunctive relief and because Mr. Gesbeck indicates that his interest
is not represented in the litigation, the court will allow him to file an amicus
curiae brief by 5:00 p.m. on Monday, December 7, 2020. The brief may not
exceed thirty pages.
The court ORDERS that Mr. James Gesbeck may file an amicus curiae
brief by 5:00 p.m. on Monday, December 7, 2020.
Dated in Milwaukee, Wisconsin this 4th day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

6

913

Case 2:20-cv-01771-PP Filed 12/04/20 Page 6 of 6 Document 37

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,

No. 2:20-cv-1771

v.
WISCONSIN ELECTIONS
COMMISSION, and its members ANN
S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMANN, JULIE M.
GLANCEY, DEAN HUDSON, ROBERT
F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

EXPEDITED NONDISPOSITIVE MOTION TO INTERVENE OF
PROPOSED INTERVENOR-DEFENDANT DEMOCRATIC
SERVICES CORPORATION/DEMOCRATIC NATIONAL
COMMITTEE (THE “DNC”) PURSUANT TO CIVIL L. R. 7(h)
Proposed Intervenor-Defendant Democratic Services Corporation/Democratic
National Committee (“DNC”) respectfully moves for expedited consideration of its
motion for leave to intervene in this action to defend its interests against the claims
asserted by Plaintiff. For the reasons discussed in the Proposed IntervenorDefendant DNC’s Brief in Support of Motion to Intervene (“DNC Intervention Brief)
filed on December 4, 2020 (Dkt. No. 23), the DNC is entitled to intervene in this case
as a matter of right under Federal Rule of Civil Procedure 24(a)(2). In the alternative,
the DNC requests permissive intervention pursuant to Rule 24(b).

914

Case 2:20-cv-01771-PP Filed 12/05/20 Page 1 of 4 Document 40

At the time the DNC filed its Motion to Intervene, 1 the Court had indicated it
would await the Defendants’ opposition brief, which Plaintiff had 21 days to file. Dkt.
No. 7. Thereafter, this Court set an expedited briefing schedule requiring responses
and replies to be filed by December 7 and 8, 2020, respectively. Today, December 5,
2020, the Court also set a deadline of December 28, 2020, for Plaintiff’s response to
the DNC’s Motion to Intervene.
In order to protect Proposed Intervenor-Defendant DNC’s rights and critical
interests as set forth in the DNC Intervention Brief, the DNC respectfully requests
that the Court consider the DNC’s motion expeditiously and grant it permission to
intervene in this case as soon as reasonably possible. The DNC is prepared to submit
its response as an Intervenor-Defendant in accordance with this Court’s schedule
(i.e., by 5:00 p.m. on December 7, 2020).
Counsel for the DNC has asked counsel for both the Plaintiff and the
Defendants if they oppose the DNC’s motion to intervene. Plaintiff’s counsel states
that that it opposes the DNC’s motion. None of the Defendants oppose the DNC’s
motion.
WHEREFORE, the DNC requests that the court grant it leave to intervene in
the above-captioned matter so that it may file its response in accordance with the
Court’s expedited schedule in this matter.
DATED: December 5, 2020

Dkt. No. 22. In accordance with Rule 24(c), a proposed answer to Plaintiff’s
complaint was attached as Exhibit 1 to the DNC’s Motion to Intervene. Id.,
Attachment 1.
1

915

-2Case 2:20-cv-01771-PP Filed 12/05/20 Page 2 of 4 Document 40

Respectfully Submitted,
Seth P. Waxman*
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
David S. Lesser*
Jamie Dycus*
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com
jamie.dycus@wilmerhale.com

s/Michelle M. Umberger
Charles G. Curtis, Jr.
SBN 1013075
Michelle M. Umberger
SBN 1023801
Sopen B. Shah
SBN 1105013
Will M. Conley
SBN 1104680
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com
mumberger@perkinscoie.com
sshah@perkinscoie.com
wconley@perkinscoie.com

Matthew W. O’Neill
SBN 1019269
FOX, O’NEILL &
SHANNON, S.C.
622 North Water Street,
Suite 500
Milwaukee, WI 53202
(414) 273-3939
mwoneill@foslaw.com

Marc E. Elias*
John Devaney*
Zachary J. Newkirk*
PERKINS COIE LLP
700 Thirteenth St., N.W.,
Suite 800
Washington, D.C. 20005
(202) 654-6200
melias@perkinscoie.com
jdevaney@perkinscoie.com
znewkirk@perkinscoie.com

* Application for admission pending

Counsel for Proposed Intervenor-Defendant

916

-3Case 2:20-cv-01771-PP Filed 12/05/20 Page 3 of 4 Document 40

CERTIFICATE OF SERVICE
I hereby certify that on Saturday, December 5, 2020, I filed a copy of the
foregoing with the Clerk of the Court using the CM/DKT. system, which will send
notification of such filing to all counsel of record.
/s/ Michelle M. Umberger
Counsel for Proposed Intervenor

917

-4Case 2:20-cv-01771-PP Filed 12/05/20 Page 4 of 4 Document 40

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
______________________________________________________________________________
ORDER GRANTING REQUEST TO EXPEDITE RULING (DKT. NO. 40),
DENYING MOTION TO INTERVENE OF PROPOSED INTERVENORDEFENDANT DEMOCRATIC SERVICES CORPORATION/DEMOCRATIC
NATIONAL COMMITTEE (THE “DNC”) (DKT. NO. 22) AND ALLOWING DNC
TO FILE AMICUS BRIEF
______________________________________________________________________________
The plaintiff’s amended complaint alleges that the 2020 election process
“is so riddled with fraud, illegality, and statistical impossibility that this Court,
and Wisconsin’s voters, courts, and legislators, cannot rely on, or certify, any
numbers resulting from this election.” Dkt. No. 9 at ¶5. It states that the court
“must set aside the results of the 2020 General Election and grant the
declaratory and injunctive relief requested herein.” Id.
The amended complaint first asserts that the election software and
hardware used by defendant the Wisconsin Elections Commission were subject
to hacking and manipulation and that “Wisconsin officials” disregarded widely
reported concerns to this effect in utilizing the hardware and software. Id. at
¶¶6-13, 52-99. Next, it asserts that the Wisconsin Elections Commission
issued improper guidance to clerks and election officials in violation of
1

918

Case 2:20-cv-01771-PP Filed 12/06/20 Page 1 of 18 Document 41

Wisconsin law. Id. at ¶¶14, 37-45. Third, it alleges that mail-in ballots either
were lost or were fraudulently recorded for voters who did not request them. Id.
at ¶¶46-50. Fourth, it asserts that voters who were ineligible to vote because
they were registered in other states nonetheless voted in Wisconsin. Id. at ¶51.
The plaintiff requests the following relief:
1.
An order directing Governor Evers and the Wisconsin
Elections Commission to de-certify the election results;
2.
An order enjoining Governor Evers from transmitting the
currently certified election results [to] the Electoral College;
3.
An order requiring Governor Evers to transmit certified
election results that state that President Donald Trump is the
winner of the election;
4.
An immediate temporary restraining order to seize and
impound all servers, software, voting machines, tabulators, printers,
portable media, logs, ballot applications, ballot return envelopes,
ballot images, paper ballots, and all “election materials” referenced
in Wisconsin Statutes § 9.01(1)(b)11. related to the November 3,
2020 Wisconsin election for forensic audit and inspection by the
Plaintiff;
5.
An order that no votes received or tabulated by machines that
were not certified as required by federal and state law be counted;
6.
A declaratory judgment declaring that Wisconsin’s failed
system of signature verification violates the Electors and Elections
Clause by working a de facto abolition of the signature verification
requirement;
7.
A declaratory judgment declaring that currently certified
election results violate the Due Process Clause, U.S. CONST.
Amend. XIV;
8.
A declaratory judgment declaring that mail-in and absentee
ballot fraud must be remedied with a Full Manual Recount or
statistically valid sampling that properly verifies the signatures on
absentee ballot envelopes and that invalidates the certified results if
the recount or sampling analysis shows a sufficient number of
ineligible absentee ballots were counted;
2

919

Case 2:20-cv-01771-PP Filed 12/06/20 Page 2 of 18 Document 41

9.
A declaratory judgment declaring absentee ballot fraud
occurred in violation of Constitutional rights, Election laws and
under state law;
10. A permanent injunction prohibiting the Governor and
Secretary of State from transmitting the currently certified results
to the Electoral College based on the overwhelming evidence of
election tampering;
11. Immediate production of 48 hours of security camera
recordings of all voting central count facilities and processes in
Milwaukee and Dane Counties for November 3, 2020 and November
4, 2020.
Id. at ¶142.
The day after the plaintiff filed the amended complaint, the movant—
Democratic Services Corporation/Democratic National Committee (the
“DNC”)—filed a motion to intervene. Dkt. No. 2. The movant describes itself as
“a diverse group of Democrats, including elected officials, candidates,
constituents, and voters.” Dkt. No. 23 at 2. It asserts that the amended
complaint “seek[s] to undo Wisconsin’s lawful certification of the election
result” and maintains that “[t]he extraordinary relief Plaintiffs1 request would
deprive the DNC’s members and constituents of their rights to have their votes
counted, undermine the electoral prospects of the DNC’s candidates, and divert
the DNC’s resources.” Id.
The movant first argues that it is entitled to intervene as of right under
Fed. R. Civ. P. 24(a). Id. It argues that its motion is timely filed, id. at 2-3, that
it has significant interests at stake in the litigation, id. at 3-4, that denial of the
The original complaint was filed by two plaintiffs—William Feehan and Derrick
Van Orden. Dkt. No. 1. William Feehan is the only plaintiff named in the
amended complaint; Van Orden no longer is a defendant. Dkt. No. 9.
1

3

920

Case 2:20-cv-01771-PP Filed 12/06/20 Page 3 of 18 Document 41

motion would impair its ability to protect its interests, id. at 5, and that its
interests are not adequately represented by the defendants, id. at 5-7. The
movant next argues that if the court does not agree that it is entitled to
intervene as of right, the court should exercise its discretion to permit it to
intervene under Fed. R. Civ. P. 24(b). Id. at 7-8.
After the court extended the Civil Local Rule 7(b) (E.D. Wis.) deadline for
the plaintiff to respond (because the twenty-one-day deadline would have fallen
on December 25, 2020), dkt. no. 38, the movant filed a Civil L.R. 7(h)
expedited, nondispositive motion asking the court to rule on the motion to
intervene “as soon as reasonably possible,” stating that it was prepared to file a
response by the deadline the court has set for the defendants to respond (5:00
p.m. on Monday, December 7, 2020). Dkt. No. 40.
The court grants the request for an expedited ruling, denies the motion
to intervene and authorizes the movant to file an amicus brief.
A.

Intervention As of Right

Fed. R. Civ. P. 24(a) provides that “[o]n timely motion, the court must
permit anyone to intervene” if the party seeking to intervene “claims an interest
relating to the . . . transaction that is the subject of the action, and is so
situated that disposing of the action may as a practical matter impair or
impede the movant’s ability to protect its interest, unless existing parties
adequately represent that interest.” (Emphasis added.) The Seventh Circuit has
described the rule as “straightforward:”
[T]he court must permit intervention if (1) the motion is timely; (2)
the moving party has an interest relating to the property or
4

921

Case 2:20-cv-01771-PP Filed 12/06/20 Page 4 of 18 Document 41

transaction at issue in the litigation; and (3) that interest may, as a
practical matter, be impaired or impeded by disposition of the case.
A proposed intervenor who satisfies these three elements is entitled
to intervene unless existing parties adequately represent his
interests.
Driftless Area Land Conservancy v. Huebsch, 969 F.3d 742, 746 (7th Cir. 2019)
(emphasis in the original).
1.

Timeliness of the Motion

“The test for timeliness is essentially one of reasonableness: ‘potential
intervenors need to be reasonably diligent in learning of a suit that might affect
tehri rights, and upon so learning they need to act promptly.’” Reich v.
ABC/York-Estes Corp., 64 F.3d 316, 321 (7th Cir. 1995 (quoting Nissei Sangyo
America, Ltd. v. United States, 31 F.3d 435, 438 (7th Cir. 1994)). In
determining whether the potential intervenor was reasonably diligent, courts
“also consider the prejudice to the original party if intervention is permitted
and the prejudice to the intervenor if his motion is denied.” Id. The Seventh
Circuit has expressed these concepts in the form of a four-factor test:
(1) the length of time the intervenor knew or should have known of
his interest in the case; (2) the prejudice caused to the original
parties by the delay; (3) the prejudice to the intervenor if the motion
is denied; (4) any other unusual circumstances.
State v. City of Chi., 912 F.3d 979, 984 (7th Cir. 2019) (quoting Grochinski v.
Mayer Brown Rowe & Maw, LLP, 719 F.3d 785, 797-90 (7th Cir. 2013)).
The movant filed its motion to intervene three days after the original
complaint was filed and a day after the amended complaint. There would be no
prejudice to the original parties in allowing the movant to intervene,
particularly as it says that it is prepared to oppose the plaintiff’s motion for
5

922

Case 2:20-cv-01771-PP Filed 12/06/20 Page 5 of 18 Document 41

injunctive relief by the December 7, 2020 deadline the court has set. The
movant did not address the third and fourth factors—the prejudice to the
movant if the court does not allow it to intervene and any other unusual
circumstances. Because the movant filed its motion only a day after the
plaintiff filed the original complaint, however, the court concludes that the
motion is timely.
2.

The Moving Party’s Interest

The movant next must demonstrate that it has an interest relating to the
property or transaction at issue in the litigation. The “transactions” at issue in
this litigation are the decisions of defendants the Wisconsin Elections
Commission and its members to sign the canvass statement for the 2020
general election and the recount in Dane and Milwaukee Counties and the
action of defendant Governor Tony Evers in signing the Certificate of
Ascertainment certifying the results of the 2020 general election.
The question of whether the movant, a self-described “diverse group of
Democrats, including elected officials, candidates, constituents, and voters,”
has an “interest” in those transactions is not as straightforward as one might
imagine.
Rule 24(a)(2) requires that the applicant claim “an interest relating
to the property or transaction that is the subject of the action.”
“Interest” is not defined, but the case law makes clear that more
than the minimum Article III interest is required. Cases say for
example that a mere “economic interest” is not enough. E.g., In re
Lease Oil Antitrust Litigation, 570 F.3d 244, 250-52 (5th Cir. 2009);
Mountaintop Condominium Ass’n v. Dave Stabbert Master Builder,
Inc., 72 F.3d 361, 366 (3d Cir. 1995); cf. Reich v. ABC/York-Estes
Corp., 64 F.3d 316, 322-23 (7th Cir. 1995). While that is a confusing
6

923

Case 2:20-cv-01771-PP Filed 12/06/20 Page 6 of 18 Document 41

formulation—most civil litigation is based on nothing more than an
“economic interest”—all that the cases mean is that the fact that you
might anticipate a benefit from a judgment in favor of one of the
parties to the lawsuit—maybe you’re a creditor of one of them—does
not entitle you to intervene in their suit.
Flying J, Inc. v. Van Hollen, 578 F.3d 569, 571 (7th Cir. 2009).
The movant contends that it has an interest in preventing disruption of
the certification of Wisconsin’s November 3, 2020 Presidential election results
and preserving the “entitlement of the Democratic Party’s candidates for
President and Vice-President to Wisconsin’s ten electoral votes.” Dkt. No. 23 at
3-4. It also asserts an interest in avoiding disenfranchisement of its
constituents and in avoiding having to “divert resources to safeguard the timely
certification of statewide results.” Id. at 4. The movant could anticipate benefits
from a judgment in favor of the defendants; because the defendants certified
the movant’s candidates for President and Vice-President as the winners of
Wisconsin’s 2020 general election, a judgment in the defendants’ favor would
leave intact that certification.
Related to—possibly entangled with—the concept of “interest” is the
question of standing. The Seventh Circuit has held that “[n]o one can maintain
an action in a federal court . . . unless he has standing to sue, in the sense
required by Article III of the Constitution—that is, unless he can show injury . .
. and that he would benefit from a decision in his favor.” Flying J, Inc., 578
F.3d at 571. “Standing to sue” implies that it is only the plaintiff who must
have standing. In most cases, the question of whether a defendant has
standing does not arise because the plaintiff has sought relief against the
7

924

Case 2:20-cv-01771-PP Filed 12/06/20 Page 7 of 18 Document 41

plaintiff. But a party who seeks to intervene as a defendant seeks to intervene
in a lawsuit brought by a plaintiff who has not sought relief against it. See
Matthew I. Hall, Standing of Intervenor-Defendants in Public Law Litigation, 80
Fordham L. Rev. 1539, 1552 (2012). Whether such a defendant—particularly
when the defendant represents a broad public interest (as, arguably, the
movant does)—must have Article III standing is unclear. See, e.g., Diamond v.
Charles, 476 U.S. 54, 68 (1986) (concluding that it need not decide whether a
party seeking to intervene due to public concerns must have Article III
standing); Gregory R. Manring, It’s Time for an Intervention: Resolving the
Conflict Between Rule 24(a)(2) and Article III Standing, 85 Fordham L. Rev. 2525
(2017).
The movant points to cases in which courts have found that political
parties have standing to sue. It cites Tex. Democratic Party v. Benkiser, 459
F.3d 582 (5th Cir. 2006), in which the Fifth Circuit concluded that the Texas
Democratic Party had standing to contest the party chair’s declaration that
Representative Tom DeLay was ineligible for election. It cites Owen v. Mulligan,
640 F.2d 1130, 1132 (9th Cir. 1981), in which the Ninth Circuit characterized
the defendant’s argument that “the only threatened injury to the plaintiffs is
the potential loss of an election” as having been “uniformly rejected.” It points
to a recent case in which a district court found that partisan political groups
were entitled to intervene as of right in litigation relating to the 2020 election.
Issa v. Newsome, No. 2:20-cv-01044-MCD-CKD, 2020 WL 3074351 (E.D. Cal.
June 10, 2020) (allowing the Democratic Congressional Campaign Committee
8

925

Case 2:20-cv-01771-PP Filed 12/06/20 Page 8 of 18 Document 41

and the Democratic Party of California to intervene as defendants as a matter
of right under Rule 24(a)(2) in a case seeking to enjoin enforcement of the
governor’s executive order requiring California counties to implement all-mail
ballot elections for the November 3, 2020 general election.
The question of whether a defendant-intervenor must have Article III
standing, and what that standing might look like when the potential defendantintervenor represents a broad public interest, is fraught. Without deciding
today whether a defendant-intervenor must have Article III standing or what
would constitute such standing, the court assumes that the movant has an
interest in the transactions that give rise to the litigation and will move to the
next two factors.
3.

Impairment of the Movant’s Interest

“The existence of ‘impairment’ depends on whether the decision of a
legal question involved in the action would as a practical matter foreclose rights
of the proposed intervenors in a subsequent proceeding.” Meridian Homes
Corp. v. Nicholas W. Prassas & Co., 683 F.2d 201, 204 (7th Cir. 1982).
(Citation omitted). The “foreclosure” of the proposed intervenor’s rights “is
measured by the general standards of stare decisis.” Id. (Citations omitted.) In
other words, whether or not the defendants succeed in this suit, is the movant
free to initiate its own suit? See, Shea v. Angulo, 19 F.3d 343, 347 (7th Cir.
1994).
Because the movant’s interests are prevention of the disruption of the
certification of Wisconsin’s November 3, 2020 Presidential election results and
9

926

Case 2:20-cv-01771-PP Filed 12/06/20 Page 9 of 18 Document 41

preservation of the “entitlement of the Democratic Party’s candidates for
President and Vice-President to Wisconsin’s ten electoral votes,” dkt. no. 23 at
3-4, as well as avoiding disenfranchisement of its constituents and in avoiding
having to “divert resources to safeguard the timely certification of statewide
results,” Id. at 4, a decision granting the relief the plaintiff requests—
decertifying the results of Wisconsin’s 2020 general election and ordering the
defendants to certify a different result—likely would foreclose the movant’s
rights in a subsequent suit. The movant cannot bring suit as a plaintiff
because it has no complaint with the status quo. Because the electoral college
will meet and vote in eight days, the movant likely would not have time to
mount its own suit in the event this court rules in favor of the plaintiff.
The movant has demonstrated that as a practical matter, its interests
may be impaired or impeded by disposition of case, depending on that
disposition.
4.

Adequacy of Representation

The movant asserts that its interests are not adequately represented by
the existing parties. Dkt. No. 23 at 5. It says that while the defendants “have
an interest in defending the actions of state officials,” it is interested in
“ensuring that the valid ballot of every Democratic voter in Wisconsin is
counted and safeguarding the election of Democratic candidates.” Id. at 6. It
says that it has “specific interests and concerns—including the Democratic
Party’s overall electoral prospects and use of their limited resources—that none
of the current Defendants share.” Id.
10

927

Case 2:20-cv-01771-PP Filed 12/06/20 Page 10 of 18 Document 41

The Seventh Circuit has spoken extensively on this factor of the Rule
24(a) test in the past year. Most recently, in Driftless, the court explained that
“[t]he most important factor in determining adequacy of
representation is how the interest of the absentee compares with the
interests of the present parties.” 7C CHARLES ALAN WRIGHT & ARTHUR
MILLER & MARY KAY KANE, FEDERAL PRACTICE AND PROCEDURE § 1909
(3d ed. 2007). Our recent decision in Planned Parenthood of
Wisconsin, Inc. v. Kaul describes our circuit’s three-tiered
methodology for evaluating adequacy of representation under Rule
24(a)(2). 942 F.3d 793, 799 (7th Cir. 2019). “The default rule,” we
explained, “is a liberal one.” Id. It derives from the Supreme Court’s
decision in Trbovich v. United Mine Workers of America, which
explained that “the requirement of the Rule is satisfied if the
applicant shows that representation of his interest ‘may be’
inadequate; and the burden of making that showing should be
treated as minimal.” 404 U.S. 528, 538 n.10 . . . (1972).
However, if the interest of the absentee is identical to that of an
existing party, or if a governmental party is charged by law with
representing the absentee’s interest, then the standard for
measuring adequacy of representation changes. In both situations—
where the absentee and an existing party have identical interests, or
the existing party is a governmental agency or official with a legal
duty to represent the absentee’s interest—a rebuttable presumption
of adequate representation arises, and the prospective intervenor
must carry a heightened burden to establish inadequacy of
representation. The degree of this heightened burden varies.
Driftless Area Land Conservancy, 969 F.3d at 747.
So—if the movant’s interest is not identical to that of an existing party or
if there is no governmental party charged by law with representing the
movant’s interest, the movant has only the minimal burden of showing that the
party’s representation “may be” inadequate. But if the movant’s interest is
identical to that of an existing party, “there is a rebuttable presumption of
adequate representation that requires a showing of ‘some conflict’ to warrant
intervention.” Planned Parenthood, 942 F.3d at 799 (quoting Wis. Ed. Ass’n
11

928

Case 2:20-cv-01771-PP Filed 12/06/20 Page 11 of 18 Document 41

Council v. Walker (“WEAC”), 705 F.3d 640, 659 (7th Cir. 2013)). And if one of
the existing parties is a governmental body charged by law with protecting the
interests of the movant, the presumption is even stronger and the standard for
rebutting the presumption higher. Id.
Defendant the Wisconsin Elections Commission is a governmental body;
its members and defendant Governor Tony Evers are representatives of
government bodies. The movant asserts, however, that none of them are
charged by law with protecting its interests. Dkt. No. 23 at 6 n.2. The
Wisconsin Elections Commission “administers and enforces Wisconsin
elections law.” https://elections.wi.gov/about. It appears that neither the WEC
nor its members are charged with protecting the interests of a party or
candidate. But its mission would appear to include ensuring that the valid
ballot of every voter—Democratic, Republican or other—is counted. In the
narrower context of the lawsuit, the court presumes the WEC’s interest and
that of its members is in defending its actions in administering and enforcing
Wisconsin’s election laws, particularly in signing the canvass statement for the
2020 Presidential general election results after the recount in Milwaukee and
Dane Counties. And the interest of defendant Governor Evers presumably will
be to defend his signing of the Certificate of Ascertainment certifying the
results of that election.
The court agrees that none of the defendants are “charged by law with
protecting the interests of the proposed intervenors,” Planned Parenthood, 942
F.3d at 799, to the extent that the movant’s interests go beyond its interest in
12

929

Case 2:20-cv-01771-PP Filed 12/06/20 Page 12 of 18 Document 41

the proper administration and enforcement of state and federal election laws
and procedures. This means the movant need not rebut the most heightened
presumption of adequacy.
But the movant and the defendants have “the same goal.” WEAC, 705
F.3d at 659 (citing Shea, 19 F.3d at 347). The movant and the defendants both
seek to defend the results of the Wisconsin 2020 Presidential general election.
Both oppose the relief the plaintiff seeks—the decertification of the election and
the certification of a different result. Both seek to defend the certification on
the ground that the election was lawful and the results valid.
The fact that the movant and the defendants share the same goal may
not necessarily give rise to the presumption of adequate representation. In her
concurrence in Planned Parenthood, now-Chief Judge Sykes explained that in
WEAC, the court had stated that an intervenor’s interest must be “unique;”
Judge Sykes sought to clarify:
WEAC cited Keith v. Daley, 764 F.2d 1265, 1268 (7th Cir. 1985), as
support for the uniqueness requirement. The relevant passage in
Keith, however, doesn’t use the term “unique.” It says this: “The
[intervenor’s] interest must be based on a right that belongs to the
proposed intervenor rather than to an existing party in the suit.” Id.
In other words, the intervenor’s interest must be based on a right
that is direct and independent. That much is clear from the
immediately preceding sentence: “A proposed intervenor must
demonstrate a direct, significant[,] and legally protectable interest in
the property [or transaction] at issue in the lawsuit.”
“Unique” is a suitable word to describe the nature of the required
interest, but as used in this context, “unique” means an interest that
is independent of an existing party’s, not different from an existing
party’s. If the intervenor has a significant independent interest but
shares the same goal as an existing party (that is, if their interests
align), then the standard for measuring the adequacy of existing
13

930

Case 2:20-cv-01771-PP Filed 12/06/20 Page 13 of 18 Document 41

representation changes, as WEAC later explains. 705 F.3d at 659
(explaining that a presumption of adequate representation arises
when goals align). But sharing the same goal as an existing party
doesn’t defeat “uniqueness,” properly understood.
Planned Parenthood, 942 F.3d at 806.
Given this clarification, Judge Sykes concluded that the Legislature had
an independent right from the Attorney General because it had an
independent, statutory right to intervene under Wis. Stat. §803.09(2m). Id.
The movant does not have a right, independent of the defendants, to
defend the certification of the 2020 election results. It has different reasons for
defending the certification. Its candidates were certified as the winners of the
Presidential election; it and its constituents are pleased with the result. But the
movant seeks to defend the certification because the movant believes it was
lawful and because it asserts that decertification would result in valid votes
being disregarded. The movant is more concerned about valid Democratic votes
being disregarded. But its concern about any votes being disregarded aligns
with the defendants’ interests in defending the legality of the certification.
Because the movant has the same goal as the defendants and has
identified no right independent of the defendants, the movant must rebut the
presumption of adequate representation by “show[ing] that some conflict
exists.” WEAC, 705 F.3d at 659. The movant has not identified such a conflict.
5.

Conclusion

The court concludes that because the movant has not rebutted the
presumption that the defendants will adequately represent its interests and
those of its constituents, it is not entitled to intervene as of right.
14

931

Case 2:20-cv-01771-PP Filed 12/06/20 Page 14 of 18 Document 41

B.

Permissive Intervention

In the alternative, the movant asks the court to exercise its discretion
and allow it to intervene under Rule 24(b). Dkt. No. 23 at 7. It indicates that it
will “inevitably raise common questions of law or fact,” and that it would
contribute to the complete development of the factual and legal issues before
this Court . . . .” Id. at 7-8.
Rule 24(b)(1)(B) gives a court the discretion to allow a party to intervene
if that party “has a claim or defense that shares with the main action a
common question of law or fact.” The Planned Parenthood decision sheds light
on the distinction between Rules 24(a) and 24(b):
Rule 24(b) is vague about the factors relevant to permissive
intervention, but it is not just a repeat of Rule 24(a)(2). We have thus
cautioned courts not to deny permissive intervention solely because
a proposed intervenor failed to prove an element of intervention as
of right. See City of Chi. v. FEMA, 660 F.3d 980, 987 (7th Cir. 2011);
Solid Waste Agency of N. Cook Cty. V. U.S. Army Corps of Eng’rs, 101
F.3d 503, 509 (7th Cir. 1996). Still, we have never gone so far as
confining the district court’s discretion to only the two mandatory
factors in Rule 24(b)(3) or to prohibit consideration of the elements
of intervention as of right as discretionary factors. Even when a
district court “did not explicitly break out its reasoning” on the two
requests, we have affirmed so long as the “decision shows a
thorough consideration of the interests of all the parties.” Ligas [ex
rel. Foster v. Maram, 478 F.3d 771] at 776 [7th Cir. 2007)].
Planned Parenthood, 942 F.3d at 804.
The court will not exercise its discretion to grant permissive intervention.
First, as the court has noted, the issue of standing for defendant-intervenors is
murky. While the Seventh Circuit has speculated that permissive intervention
may not require standing “if the existing parties present a case or controversy,”
it has not decided the question. Id. at 803 n.5. Second, the court has noted
15

932

Case 2:20-cv-01771-PP Filed 12/06/20 Page 15 of 18 Document 41

that the movant has not identified any conflict that would prevent the current
defendants from adequately representing its interests. Third, the movant says
that it would contribute to the adequate development of the record. That may
be a contribution, but the movant may do it in another way—by advising the
court as an amicus.
C.

Amicus Curiae

While the Federal Rules of Civil Procedure do not provide for the filing of
amicus curiae briefs in the district court (as opposed to Fed. R. App. P. 29,
which governs such filings in federal appellate courts), some district courts
have held that they have inherent authority to appoint an amicus curiae—a
“friend of the court.” See, e.g., Recht v. Justice, No. 5:20-CV-90, 2020 WL
6109426, at *1 (N.D. W. Va. June 9, 2020); Bounty Minerals, LLC v.
Chesapeake Exploration, LLC, No. 5:17cv1695, 2019 WL 7048981, at *10 (N.D.
Ohio Dec. 23, 2019); Jin v. Ministry of State Security, 557 F. Supp. 2d 131,
136 (D. D.C. 2008); NGV Gaming, Ltd. v. Upstream Point Molate, LLC, 355 F.
Supp. 2d 1061, 1067 (N.D. Cal. 20005).
In a federal circuit court, Fed. R. App. P. 29(1)(3) requires a party seeking
to file an amicus brief to file a motion. The motion must state the movant’s
interest and why the amicus brief is desirable. The movant has not sought to
file an amicus brief—it seeks to intervene as a party. The court has denied that
relief but believes that the movant has demonstrated that it has an interest in
the litigation.

16

933

Case 2:20-cv-01771-PP Filed 12/06/20 Page 16 of 18 Document 41

The Seventh Circuit has cautioned that “[t]he term ‘amicus curiae’ means
friend of the court, not friend of a party.” Ryan v. Commodity Futures Trading
Com’n, 125 F.3d 1062, 1063 (7th Cir. 1997) (citing United States v. Michigan,
940 F.2d 143, 164-65 (6th Cir. 1991)). “An amicus brief should normally be
allowed when a party is not represented competently or is not represented at
all, when the amicus has an interest in some other case that maybe affected by
the decision in the present case . . . or when the amicus has unique
information or perspective that can help the court beyond the help that the
lawyers for the parties are able to provide.” Id. (Citations omitted.) The movant
argues that it has unique information and a unique perspective that the
defendants do not have.
The court will, sua sponte, allow the movant to file an amicus brief
relating to the plaintiff’s request for injunctive relief, so that the movant may do
what it has said it has the ability to do—help to fully develop the record. The
movant must file its brief by the deadline the court has set for the defendants
to file their briefs in opposition—5:00 p.m. on Monday, December 7, 2020. The
movant also must abide by the page limitation in Civil L.R. 7(f)—no more than
thirty pages.
D.

Conclusion

The court GRANTS the movant’s Expedited Nondispositive Motion to
Intervene to the extent that it asks the court to expedite its ruling of the
original motion to intervene. Dkt. No. 40.

17

934

Case 2:20-cv-01771-PP Filed 12/06/20 Page 17 of 18 Document 41

The court DENIES the movant’s Motion to Intervene of Proposed
Intervenor-Defendant Democratic Services Corporation/Democratic National
Committee. Dkt. No. 22.
The court ORDERS that the movant may file an amicus curiae brief by
5:00 p.m. on Monday, December 7, 2020.
Dated in Milwaukee, Wisconsin this 6th day of December, 2020.
BY THE COURT:
______________________________________
HON. PAMELA PEPPER
Chief United States District Judge

18

935

Case 2:20-cv-01771-PP Filed 12/06/20 Page 18 of 18 Document 41

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiffs.

v.

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARLC L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN HUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
____________________________________________________________________________
AMENDED PLAINTIFF’S MEMORANDUM IN SUPPORT OF
MOTION FOR DECLARATORY, EMERGENCY,
AND PERMANENT INJUNCTIVE RELIEF
______________________________________________________________________________
To avoid possible confusion from removal of Mr. Van Orden is Plaintiff, this Amended
Memorandum amends Plaintiff’s original Memorandum in Support of Motion for Declaratory,
Emergency, and Permanent Injunctive Relief, ECF Docket No. 3. It is identical to that original
Memorandum except for amending references to Plaintiffs to refer to Mr. Meehan only and
correcting several inadvertent references to the State of Georgia.
FACTS
The facts relevant to this motion are set forth in the Complaint and its accompanying exhibits,
all of which are respectfully incorporated herein by reference. We present only a summary.
After a general election and recount, Joe Biden has been declared the winner of Wisconsin’s
General Election for President by a difference of 20,585 votes. But the vote count certified by

936

1
Case 2:20-cv-01771-PP Filed 12/06/20 Page 1 of 11 Document 42

defendants on November 30, 2020 fails to recognize the votes are steeped in fraud. Tens of
thousands of votes counted toward Mr. Biden’s final tally were the product of fraudulent, illegal,
ineligible and outright fictitious ballots. Plaintiff support this claim through the evidence laid out
in the Complaint which includes the following conclusions:
The Complaint details a pervasive pattern of illegal conduct by Defendants where they
systematically ignored, or acted in direct contravention of, the express requirements of Wisconsin
Election Code provisions specifically intended to prevent voter fraud such as voter Photo ID,
witness, signature, eligibility and address verification requirements, supported by witness
affidavits and even written guidance from Defendant Wisconsin Elections Commission (“WEC”)
instructing election workers to violate the Wisconsin Election Code. See Compl., Section I.
In Section II and III of the Complaint, Plaintiff demonstrates through statistical analysis of
voting results and technical analysis of voting machines and software that each of several distinct
categories of voting fraud or batches of fraudulent ballots were larger than Biden’s 20,585 margin.
The Affidavit of Russell James Ramsland, Jr. first examines the widely reported and
“statistically impossible” Biden “spike” on November 4 where Biden, trailing Trump by a few
percent, suddenly received 143,379 votes in a single five-minute interval, causing his relatively
flat vote tally to make a vertical jump up and over Trump to take the lead in Wisconsin by about
one percent. See Compl., Ex. 17 ¶13. Another red flag identified by Mr. Ramsland is the
historically unprecedented turnout levels (not just for Wisconsin, but for anywhere except for
countries like North Korea): 69 out of 72 Wisconsin counties had “voter turnout figures higher
than 80%, a threshold generally considered to be the maximum expected,” 59 were above 90%,
and two were nearly 200% or more. Id. ¶15. Mr. Ramsland concludes “to a reasonable degree of

937

2
Case 2:20-cv-01771-PP Filed 12/06/20 Page 2 of 11 Document 42

professional certainty” that the Biden spike included at least 119,430 illegal votes for Biden, while
the total illegal votes from the fraudulent turnout figures was at least 384,085. Id. ¶14.
The Complaint provides testimony from several other experts who provided the estimates for
illegal votes that should be discarded due to other categories of voting fraud:
•

The report of William M. Briggs, Ph.D. finding that the average sum of two types
of errors or fraud (either by Wisconsin election officials or third parties) – (1)
absentee voters who were recorded as receiving ballots without requesting them
and (2) absentee voters who returned ballots that were recorded as unreturned –
was 29,594 votes (or nearly 31% of total). (See id., Ex 2).

•

Matt Braynard used the National Change of Address database to identify votes
by persons that moved out of state or subsequently registered to vote in another
state for the 2020 election, and found a total of 6,966 ineligible votes. (See id.,
Ex 3).

•

A separate analysis by Mr. Braynard of the likely number of votes that were
improperly relying on the “indefinitely confined” exemption to voter ID to be
96,437 (See id., Ex 3).

•

Another expert witness, whose testimony has been redacted for his safety,
estimates excess votes arising from the statistically significant outperformance
of Dominion machines on behalf of Joe Biden to be 181,440. (See id., Ex 3)

Thus each of these sources of fraudulent votes (with the exception of the still substantial
number of illegal out-of-state voters) is larger than Biden’s margin of victory, and if any of these
categories of illegal voters were thrown out, it would change the result of the election, and give
President Trump a second term.
Section III of the Complaint also provides testimony from experts regarding the security flaws
in Wisconsin voting machines, in particular, Dominion Voting Systems (“Dominion”) that allow
Dominion, as well domestic and foreign actors, to alter, destroy, manipulate or exfiltrate ballot and
other voting data, and potentially to do so without a trace due to Dominion’s unprotected logs. For
example, the Complaint includes an analysis of the Dominion software system by a former US
Military Intelligence expert concludes that the system and software have been accessible and were

938

3
Case 2:20-cv-01771-PP Filed 12/06/20 Page 3 of 11 Document 42

certainly compromised by rogue actors, such as Iran and China. (See Compl., Ex.105). By using
servers and employees connected with rogue actors and hostile foreign influences combined with
numerous easily discoverable leaked credentials, Dominion neglectfully allowed foreign
adversaries to access data and intentionally provided access to their infrastructure in order to
monitor and manipulate elections, including the most recent one in 2020. The substantial
likelihood that hostile foreign governments, with or without active collusion or collaboration with
the Defendants, is a separate and independent ground to grant the declaratory and injunctive relief
requested in the Complaint and this Motion.
DISCUSSION
Plaintiff Has Standing
Plaintiff William Feehan, is a registered Wisconsin voter and a nominee of the Republican
Party to be a Presidential Elector on behalf of the State of Wisconsin. “Electors have standing as
candidates." Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020). As a candidate for elective
office, Plaintiff has “a cognizable interest in ensuring that the final vote tally reflects the legally
valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury to candidates
such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020) (affirming that
Presidential Electors have Article III and prudential standing to challenge actions of Secretary of
State in implementing or modifying State election laws); see also McPherson v. Blacker, 146 U.S.
1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per curiam).
Plaintiff Is Entitled to Injunctive Relief.
“To obtain a preliminary injunction, a plaintiff must show three things: (1) without such relief,
he will suffer irreparable harm before his claim is finally resolved; (2) he has no adequate remedy
at law; and (3) he has some likelihood of success on the merits. Harlan v. Scholz, 866 F.3d 754,

939

4
Case 2:20-cv-01771-PP Filed 12/06/20 Page 4 of 11 Document 42

758 (7th Cir. 2017) (citing Girl Scouts of Manitou Council, Inc. v. Girl Scouts of U.S. of Am., Inc.,
549 F.3d 1079, 1086 (7th Cir. 2008).” “If the plaintiff can do that much, the court must then weigh
the harm the plaintiff will suffer without an injunction against the harm the defendant will suffer
with one.” Harlin, 866 F.3d at 758 (citing Ty, Inc. v. Jones Grp., Inc., 237 F.3d 891, 895 (7th Cir.
2001). In addition, the court must ask whether the preliminary injunction is in the public interest.
Jones v. Markiewicz-Qualkinbush, 842 F.3d 1053, 1058 (7th Cir. 2016).
All elements are met here. “When the state legislature vests the right to vote for President in
its people, the right to vote as the legislature has prescribed is fundamental; and one source of its
fundamental nature lies in the equal weight accorded to each vote and the equal dignity owed to
each voter.” Bush v. Gore, 531 U.S. 98, 104 (2000) (emphasis added). The evidence shows not
only that Defendants failed to administer the November 3, 2020 election in compliance with the
manner prescribed by the Wisconsin legislature, but that Defendants committed a scheme and
artifice to fraudulently and illegally manipulate the vote count to make certain the election of Joe
Biden as President of the United States. This conduct violated Plaintiffs’ equal protection and due
process rights as well their rights under Wisconsin law.
Plaintiff has a substantial likelihood of success.
The Plaintiff does not need to demonstrate a likelihood of absolute success on the merits.
“Instead, [it] must only show that [its] chances to succeed on his claims are ‘better than negligible.’
” Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1046 (7th Cir. 2017).
(quoting Cooper v. Salazar, 196 F.3d 809, 813 (7th Cir. 1999)). “This is a low threshold,” id., that
Plaintiff has easily passed.
Through detailed fact and expert testimony including documentary evidence contained in the
Complaint and its exhibits, Plaintiff has made a compelling showing that Defendants’ intentional

940

5
Case 2:20-cv-01771-PP Filed 12/06/20 Page 5 of 11 Document 42

actions jeopardized the rights of Wisconsin citizens to select their leaders under the process set out
by the Wisconsin Legislature through the commission of election frauds that violated state laws
and the Equal Protection Clause in the United States Constitution. And pursuant to 42 U.S.C. §
1983, a plaintiff must demonstrate by a preponderance of the evidence that his constitutional rights
to equal protection or fundamental right to vote were violated. See, e.g., Radentz v. Marion Cty.,
640 F.3d 754, 756-757 (7th Cir. 2011).
The tally of ballots certified by Defendants giving Mr. Biden the lead with 20,800 votes cannot
possibly stand in light of the thousands of illegal mail-in ballots that were improperly counted and
the vote manipulation caused by the Dominion software.
Plaintiffs’ equal protection claim is straightforward. The right of qualified citizens to vote in
a state election involving federal candidates is recognized as a fundamental right under the
Fourteenth Amendment of the United States Constitution. Harper v. Va. State Bd. of Elections,
383 U.S. 663, 665 (1966). See also Reynolds v. Sims, 377 U.S. 533, 554 (1964) (The Fourteenth
Amendment protects the “the right of all qualified citizens to vote, in state as well as in federal
elections.”). Indeed, ever since the Slaughter-House Cases, 83 U.S. 36 (1873), the United States
Supreme Court has held that the Privileges or Immunities Clause of the Fourteenth Amendment
protects certain rights of federal citizenship from state interference, including the right of citizens
to directly elect members of Congress. See Twining v. New Jersey, 211 U.S. 78, 97 (1908) (citing
Ex parte Yarbrough, 110 U.S. 651, 663-64 (1884)). See also Oregon v. Mitchell, 400 U.S. 112,
148-49 (1970) (Douglas, J., concurring) (collecting cases).
The fundamental right to vote protected by the Fourteenth Amendment is cherished in our
nation because it “is preservative of other basic civil and political rights.” Reynolds, 377 U.S. at
562; League of Women Voters of Ohio v. Brunner, 548 F.3d 463,476 (6th Cir. 2008) (“The

941

6
Case 2:20-cv-01771-PP Filed 12/06/20 Page 6 of 11 Document 42

right to vote is a fundamental right, preservative of all rights.”). Voters have a “right to cast
a ballot in an election free from the taint of intimidation and fraud,” Burson v. Freeman, 504 U.S.
191, 211 (1992), and “[c]onfidence in the integrity of our electoral processes is essential to the
functioning of our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per
curiam).
“Obviously included within the right to [vote], secured by the Constitution, is the right of
qualified voters within a state to cast their ballots and have them counted” if they are validly cast.
United States v. Classic, 313 U.S. 299, 315 (1941). “[T]he right to have the vote counted” means
counted “at full value without dilution or discount.” Reynolds, 377 U.S. at 555, n.29 (quoting
South v. Peters, 339 U.S. 276, 279 (1950) (Douglas, J., dissenting)).
“Every voter in a federal . . . election, whether he votes for a candidate with little chance of
winning or for one with little chance of losing, has a right under the Constitution to have his vote
fairly counted, without its being distorted by fraudulently cast votes.” Anderson v. United States,
417 U.S. 211, 227 (1974); see also Baker v. Carr, 369 U.S. 186, 208 (1962). Invalid or fraudulent
votes “debase[]” and “dilute” the weight of each validly cast vote. See Anderson, 417 U.S. at 227.
The right to an honest [count] is a right possessed by each voting elector, and to the extent
that the importance of his vote is nullified, wholly or in part, he has been injured in the free exercise
of a right or privilege secured to him by the laws and Constitution of the United States.” Anderson,
417 U.S. at 226 (quoting Prichard v. United States, 181 F.2d 326, 331 (6th Cir.), aff'd due to
absence of quorum, 339 U.S. 974 (1950)).
Practices that promote the casting of illegal or unreliable ballots or fail to contain basic
minimum guarantees against such conduct, can violate the Fourteenth Amendment by leading to
the dilution of validly cast ballots. See Reynolds, 377 U.S. at 555 (“[T]he right of suffrage can be

942

7
Case 2:20-cv-01771-PP Filed 12/06/20 Page 7 of 11 Document 42

denied by a debasement or dilution of the weight of a citizen’s vote just as effectively as by wholly
prohibiting the free exercise of the franchise.”). States may not, by arbitrary action or other
unreasonable impairment, burden a citizen’s right to vote. See Baker v. Carr, 369 U.S. 186, 208
(1962) (“citizen’s right to a vote free of arbitrary impairment by state action has been judicially
recognized as a right secured by the Constitution”).
“Having once granted the right to vote on equal terms, the state may not, by later arbitrary and
disparate treatment, value one person’s vote over that of another.” Bush, 531 U.S. at 104-05.
Among other things, this requires “specific rules designed to ensure uniform treatment” in order
to prevent “arbitrary and disparate treatment of voters.” Id. at 106-07; see also Dunn v. Bloomstein,
405 U.S. 330, 336 (1972) (providing that each citizen “has a constitutionally protected right to
participate in elections on an equal basis with other citizens in the jurisdiction”). Similarly, equal
protection needs to be recognized in this case where many Wisconsin’s citizens’ lawful votes
remained uncounted, and many were diluted by unlawful votes in violation of the Equal Protection
clause.
The Plaintiff Will Suffer Irreparable Harm
“Where, as here, plaintiff has demonstrated a likelihood of success on the merits as to a
constitutional claim, such an injury has been held to constitute irreparable harm.” Democratic Nat’l
Comm. v. Bostelmann, 447 F.Supp.3d 757, 769 (W.D. Wis. 2020) (citing Elrod v. Burns, 427 U.S.
347, 373, 96 S.Ct. 2673, 49 L.Ed.2d 547 (1976) (where plaintiff had proven a probability of
success on the merits, the threatened loss of First Amendment freedoms “unquestionably
constitutes irreparable injury”); see also Preston v. Thompson, 589 F.2d 300, 303 n.4 (7th Cir.
1978) (“The existence of a continuing constitutional violation constitutes proof of an irreparable
harm.”).

943

8
Case 2:20-cv-01771-PP Filed 12/06/20 Page 8 of 11 Document 42

Moreover, courts have specifically held that infringement on the fundamental right to vote
constitutes irreparable injury. See Obama for Am. v. Husted, 697 F.3d 423, 435 (6th Cir. 2012) (“A
restriction on the fundamental right to vote ... constitutes irreparable injury.”); Williams v. Salerno,
792 F.2d 323, 326 (2d Cir. 1986) (holding that plaintiffs “would certainly suffer irreparable harm
if their right to vote were impinged upon”).” \
“Additionally, traditional legal remedies would be inadequate, since infringement on a
citizens’ constitutional right to vote cannot be redressed by money damages.” Bostelmann, 447
F.Supp.3d at 769 (citing Christian Legal Soc'y v. Walker, 453 F.3d 853, 859 (7th Cir. 2006) (“The
loss of First Amendment freedoms is presumed to constitute an irreparable injury for which money
damages are not adequate.”); League of Women Voters of N. Carolina v. North Carolina, 769 F.3d
224, 247 (4th Cir. 2014) (“[O]nce the election occurs, there can be no do-over and no redress.”).”
The Balance of Harms & Public Interest
Under Seventh Circuit law, a “sliding scale” approach is used for balancing of harms: “[t]he
more likely it is that [the movant] will win its case on the merits, the less the balance of harms
need weigh in its favor.” Girl Scouts of Manitou Council v. Girl Scouts of United States of Am.,
Inc., 549 F.3d 1079, 1100 (7th Cir. 2008). Plaintiff above have shown his strong likelihood of
success on the merits above. The low costs to Defendants and high potential harm to Plaintiff make
this a case with a substantial net harm that an immediate and emergency injunctive relief can
prevent.
In this regard, Plaintiff would highlight a recent Eleventh Circuit decision addressed a claim
in 2018 related to Georgia’s voting system and Dominion Voting Systems that bears on the
likelihood of Plaintiffs’ success on the merits and the balance of harms in the absence of injunctive
relief:

944

9
Case 2:20-cv-01771-PP Filed 12/06/20 Page 9 of 11 Document 42

In summary, while further evidence will be necessary in the future, the Court finds that the
combination of the statistical evidence and witness declarations in the record here (and the
expert witness evidence in the related Curling case which the Court takes notice of)
persuasively demonstrates the likelihood of Plaintiff succeeding on its claims. Plaintiff has
shown a substantial likelihood of proving that the Secretary's failure to properly maintain
a reliable and secure voter registration system has and will continue to result in the
infringement of the rights of the voters to cast their vote and have their votes counted.

Common Cause Georgia v. Kemp, 347 F. Supp. 3d 1270, 1294-1295, (11th Cir. 2018).
Therefore, it is respectfully requested that the Court grant Plaintiffs’ Motion and enter the
proposed Order submitted therewith.
Respectfully submitted, this 6th day of December, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

945

10
Case 2:20-cv-01771-PP Filed 12/06/20 Page 10 of 11 Document 42

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383

daneastman@me.com

946

11
Case 2:20-cv-01771-PP Filed 12/06/20 Page 11 of 11 Document 42

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S MOTION FOR LEAVE TO SUBMIT
SEPARATE REPLIES TO MULTIPLE SUBMISSIONS BY DEFENDANTS
AND AMICI OPPOSING PLAINTIFF’S AMDEND MOTION FOR
TEMPORARY RESTRAINING ORDER AND PRELIMINARY
INJUNCTION TO BE CONSIDERED IN AN EXPEDITED MANNER
______________________________________________________________________________
COMES NOW Plaintiff, William Feehan by and through his undersigned counsel, and moves
the Court to permitting him to submit separate or consolidated replies of 15 pages each to each of
the multiple submissions of Defendants and Amici in opposition to Plaintiff’s Motion for
Temporary Restraining Order and Preliminary Injunction to Be Considered in an Expedited
Manner (Amended Motion).
In support, Plaintiff shows:
1) By Order dated December 4, ECF Docket No. 29, the Court referenced “Civil L.R. 7(f),
which provides that memoranda in opposition to motions are limited to thirty pages and reply
briefs in support of motions are limited to fifteen pages.”
1

947

Case 2:20-cv-01771-PP Filed 12/06/20 Page 1 of 4 Document 43

2) Civil Local Rule 7(f) further provides that briefs may not exceed those page limits “unless
the Court has previously granted leave to file an oversized memorandum.”
3) By the same Order, the Court directed Defendants Gov. Tony Evers and Wisconsin Elections
Commission to file an “opposition brief” to Plaintiff’s Amended Motion by 5:00 p.m. on Monday,
December 7, 2020, and directed Plaintiff to file his reply by 5:00 p.m. on Tuesday, December 8.
4) While the reference is to a single brief, Defendants are represented by separate counsel, and
Plaintiff anticipates that each Defendant will file a separate 30 page brief in opposition to Plaintiff’s
Amended Motion.
5) Subsequently on December 4, Defendant Gov. Tony Evers filed a Motion Requesting Leave
to File an Oversized Memorandum of 45 pages in support of his proposed Motion to Dismiss and
in response to Plaintiff’s Amended Motion. ECF Docket No. 34.
6) By Text Order dated December 4, ECF Docket No. 36, the Court indicated the Court would
allow Gov. Tony Evers leave to file “separate briefs opposing the plaintiff’s amended motion and
supporting his own.” Pursuant to Civil L. R. 7(f), the separate brief apparently may be 30 pages as
well.
7) By Order dated December 4, ECF Docket No. 37, the Court granted leave to proposed
Intervenor James Gesbeck to file an amicus brief of 30 pages opposing Plaintiff’s Amended
Motion.
8) By Order dated December 6, ECF Docket No. 41, the Court granted leave to proposed
Intervenor Democratic National Committee to file an amicus brief opposing Plaintiff’s Amended
Motion for Temporary Restraining Order, also presumably 30 pages, the same as Amici Gesbeck.
9) The total page limit of opposition to Plaintiff’s Amended Motion may therefore total as many
as 150 pages.

2

948

Case 2:20-cv-01771-PP Filed 12/06/20 Page 2 of 4 Document 43

10) Under the Court’s December 4 Order, Docket No. 29, Plaintiff is apparently limited, at
present, to a single 15 page reply in response to the total 150 pages filed in opposition.
11) While Plaintiff may well not file a 15 page Reply to each and every submission, Plaintiff
cannot anticipate all arguments raised by multiple Defendants and Amici, and in any event, a limit
of 15 pages is inadequate to reply to up to 150 pages of opposing submissions by Defendants and
Amici.
CONCLUSION
Based on the Court’s stated preference that Gov. Evers file separate briefs supporting his Motion
to Dismiss and opposing Plaintiff’s Amended Motion, Plaintiff therefore requests leave to file a
separate Reply to each opposing submission, each Reply not to exceed 15 pages.

Respectfully submitted, this 6th day of December, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

3

949

Case 2:20-cv-01771-PP Filed 12/06/20 Page 3 of 4 Document 43

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044

miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383

daneastman@me.com

4

950

Case 2:20-cv-01771-PP Filed 12/06/20 Page 4 of 4 Document 43

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S MOTION FOR CONSOLIDATED
EVIDENTIARY HEARING AND TRIAL ON THE MERITS
______________________________________________________________________________
COMES NOW Plaintiff, William Feehan by and through his undersigned counsel, and moves
the Court to schedule an evidentiary hearing on the merits at 9 a.m., Wednesday, December 9,
2020, or at the Court’s earliest opportunity other than on Thursday, December 10, 2020. This
Motion is brought pursuant to FRCP 65.
In support, Plaintiff shows:
1) FRCP 65(a) provides:
(a) Preliminary Injunction.
(1) Notice. The court may issue a preliminary injunction only on notice to the adverse party.
(2) Consolidating the Hearing with the Trial on the Merits. Before or after beginning the
hearing on a motion for a preliminary injunction, the court may advance the trial on the merits
and consolidate it with the hearing. Even when consolidation is not ordered, evidence that is
received on the motion and that would be admissible at trial becomes part of the trial record
and need not be repeated at trial. But the court must preserve any party’s right to a jury trial.

1

951

Case 2:20-cv-01771-PP Filed 12/06/20 Page 1 of 4 Document 44

2) As the Court is likely aware, prior to filing this Case No. 2:20-cv-1771, Plaintiffs’ Counsel
commenced similar actions in several other jurisdictions, based upon evidence provided in the
Affidavits and Declarations the same or similar to those of Plaintiff’s expert witnesses supporting
Plaintiff’s Amended Complaint in this case.
3) Because Plaintiff’s counsel had concluded that December 8 was the final date for
determining injunctive relief and because Plaintiff’s expert witnesses could not be available in
multiple courts at once, Plaintiff proposed to proceed based on the expert witness and other
documentary evidence provided in the Exhibits to his Complaint, which Plaintiff asserts satisfies
the evidentiary standard for a Temporary Restraining Order in any event. Pl. Amended
Memorandum at 5 – 8.
4) However, pursuant to its Order dated December 4, ECF Docket No. 29, the Court has
determined that December 14 is the final date for determination rather than December 8. Further,
except for Thursday, December 10, scheduling ordered in the other jurisdictions has now made it
possible for Plaintiff’s experts to appear before this Court on Wednesday, December 9 or thereafter.
5) Also, counsel who have appeared on behalf of Defendants and amici proposed intervenors
in this action have appeared on behalf of similarly situated defendants in other jurisdictions. Based
upon their filings in those jurisdictions and the responsive pleadings proposed by amici in this
action, it is clear that defendants intend to argue, inter alia, that relief should not be granted apart
from an evidentiary determination on the merits.
6) In its December 4 Order, the Court contemplated “exercis[ing] its discretion whether to hold
an evidentiary hearing or hear argument.” Id. at 3 – 4.
7) Plaintiff’s reply briefing will be submitted by 5:00 p.m., Tuesday, December 8.

2

952

Case 2:20-cv-01771-PP Filed 12/06/20 Page 2 of 4 Document 44

8) A consolidated hearing/trial on December 9 under Rule 65(a)(2) would provide the Court a
more thorough basis for its decision than the documentary evidence available to date, and would
make possible a final order with at least a minimal window of several days available for appeal.
9) Plaintiff would present three witnesses and estimates the entire hearing could be concluded
in three hours.
CONCLUSION
Accordingly, the Plaintiff respectfully requests the Court to schedule a consolidated
hearing/trial on the merits commencing at 9 a.m., December 9, 2020.

Respectfully submitted, this 6th day of December, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

3

953

Case 2:20-cv-01771-PP Filed 12/06/20 Page 3 of 4 Document 44

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

4

954

Case 2:20-cv-01771-PP Filed 12/06/20 Page 4 of 4 Document 44

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS
COMMISSION, and its members
ANN S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMAN, JULIE M.
GLANCEY, DEAN KNUDSON, ROBERT
F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

DEFENDANTS WISCONSIN ELECTIONS COMMISSION
AND ITS MEMBERS’ RESPONSE TO
TO PLAINTIFF’S MOTION FOR HEARING

This case should proceed on the schedule that has already been ordered.
Plaintiff’s delayed reversal of position and request for an evidentiary hearing
this week with unidentified witnesses is prejudicial, impractical, and would
not advance resolution of this case. For reasons detailed in the Commission’s
filings later today, the injunction and this entire case can and should be
resolved on briefs. In any event, the Commission has already relied on the
Plaintiff’s request to not have a hearing when scheduling other cases, and a

955

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 5 Document 46

hearing this week is impractical. Plaintiff’s delayed scheduling request should
be denied for four reasons.
First, this request represents quintessential sandbagging. Plaintiff
initially filed his motion for a temporary restraining order and preliminary
injunction on December 1 without asking for a hearing. (See Dkt. 2.) He then
amended that motion later that day, again, without requesting a hearing (see
Dkt. 6), which the Court acknowledged in its December 2 order (Dkt. 7). The
next day, December 3, Plaintiff submitted a third amended motion and
proposed a briefing schedule “to submit the matter on briefs without
argument.” (Dkt. 10-1:1.) Plaintiff’s third amended motion expressly states
that it “present material dispositive issues which are questions of law that may
be resolved without factual investigation or determination.” (Dkt. 10 ¶ 6.) The
court granted that request and scheduled briefing. (Dkt. 29:6) (“But because
that is what the plaintiff—the movant—has asked, the court will rule on the
pleadings.”) Now, at 9:00 p.m. on the Sunday evening before Defendants’ briefs
are due, Plaintiff decides to change his direction and requests an evidentiary
hearing to present three mystery witnesses. This type of sandbagging is
inexcusable.
Second, the Commission would be prejudiced by Plaintiff’s sandbagging.
It has relied on Plaintiff’s prior request to not have a hearing when scheduling
other hearings, and its witnesses cannot now reasonably prepare and may not

956

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 5 Document 46

be available given other proceedings. This week, there is a pretrial hearing on
Wednesday and a hearing on Thursday in another election case in federal court
brought by Donald J. Trump. Donald J. Trump v. The Wisconsin Elections
Comm’n, No. 20-cv-1785-bhl (E.D. Wis.) (See Dkt. 45 noting that a final pretrial
conference is scheduled for Wednesday, December 9, 2020, at 3:00 p.m., and
a final evidentiary hearing is scheduled on Thursday, December 10, 2020 at
9:00 a.m.) There is a hearing on Friday in a state-court case where Donald J.
Trump brings election claims through the state procedures under Wis. Stat.
§ 9.01. Donald J. Trump vs. Joseph R. Biden, No. 20CV7092 (Wis. Cir. Ct.
Milwaukee Cty.) (scheduling a hearing for Friday, December 11, 2020 at
9:00 a.m.). And Wisconsin Assembly Speaker Robin Vos and Majority Leader
Rep. Jim Steineke have announced the Assembly Committee on Campaigns
and Elections will host a public hearing on the 2020 presidential election
scheduled for December 11, 2020, at 10:00 a.m. in the Wisconsin State Capitol.
An evidentiary hearing here will require the same Commission witness
or witnesses who need to prepare for hearings on Thursday and Friday. Adding
a hearing on Wednesday, or any other day this week, is unacceptably
burdensome and prejudicial.
Further, the Commission relied on the Plaintiff’s request to not have a
hearing and has not requested expedited discovery or deposed any of Plaintiff’s
purported experts or other witnesses—some of which are not even identified in

957

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 5 Document 46

their declarations. Astoundingly, Plaintiff fails to even identify which three
witnesses he intends to present at a hearing he proposes to occur in days.
Plaintiff’s tactics are inexcusable and should not be entertained by the court.

See, Stern v. Marshall, 564 U.S. 462, 482 (2011) (admonishing plaintiff’s
“sandbagging” and noting that the consequences “can be particularly severe.”)
Third, no evidentiary hearing is necessary. As will be explained in detail in
the Commission’s response brief to be filed later today, Plaintiff’s case has

multiple threshold defects that require dismissal on the pleadings. Plaintiff
lacks standing, his inexplicably late claim is barred by laches, and the relief he
requests is barred by the Eleventh Amendment and Substantive Due Process
Clause. Plaintiff’s individual causes of action fair no better and he has not
stated any constitutional claims as a matter of law.
Finally, what Plaintiff likely intends to present at any evidentiary
hearing is inadmissible under Daubert and the Federal Rules of Evidence. The
glaring unreliability, and inadmissibility of the evidence that Plaintiff filed in
support of his injunction request will be further explained in the Commission’s
response brief to be filed later today. The documents filed with his Complaint and
brief do not even meet basic evidentiary standards and cannot possibly support

overturning the results of the election.
Plaintiff’s late reversal of position does not warrant prejudicing the
Commission with an evidentiary hearing the day after tomorrow. The

958

4
Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 5 Document 46

Commission requests that this case proceed on the schedule that is already
established.
Dated this 7th day of December 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants, Wisconsin
Elections Commission and its Members
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

959

5
Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 5 Document 46

960

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 20 Document 47

961

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 20 Document 47

962

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 20 Document 47

963

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 20 Document 47

964

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 20 Document 47

965

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 20 Document 47

966

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 20 Document 47

967

Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 20 Document 47

968

Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 20 Document 47

969

Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 20 Document 47

970

Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 20 Document 47

971

Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 20 Document 47

972

Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 20 Document 47

973

Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 20 Document 47

974

Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 20 Document 47

975

Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 20 Document 47

976

Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 20 Document 47

977

Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 20 Document 47

978

Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 20 Document 47

979

Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 20 Document 47

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
v.

Plaintiffs,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that Stephen E. Morrissey of the law firm of Susman Godfrey
LLP has been retained by defendant Governor Tony Evers in this action. Please serve copies of
all papers in this action on the undersigned at the address set forth below.
Respectfully submitted this 7th day of December 2020.
s/ Stephen E. Morrissey
Stephen E. Morrissey
SUSMAN GODFREY L.L.P.
1201 Third Avenue, Ste. 3800
Seattle, WA 98101
206-516-3880
smorrisey@susmangodfrey.com
Attorney for Defendant, Governor Tony Evers

982

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 1 Document 50

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
Plaintiff,
v.
WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
DEFENDANT GOVERNOR TONY EVERS’S
MOTION TO DISMISS PLAINTIFF’S AMENDED COMPLAINT
The reasons for dismissing Plaintiff’s complaint, with prejudice, are numerous. Glaringly,
not only does Plaintiff lack standing to bring his claims, but his claims are also not justiciable
before this Court. Therefore, the Court lacks subject matter jurisdiction and the complaint should
be dismissed pursuant to Fed. R. Civ. P. 12(b)(1). Moreover, Plaintiff’s claims are barred by the
Eleventh Amendment of the U.S. Constitution. And, given Plaintiff’s delay in filing his
complaint, even if Plaintiff had standing and his claims were both justiciable and not
constitutionally foreclosed, they are now foreclosed under the doctrine of laches. Finally, even if
Plaintiff surmounts these jurisdictional, justiciability, and equitable objections, Plaintiff’s claims
should also be dismissed pursuant to Fed. R. Civ. P. 9(b) and 12(b)(6) for failure to allege fraud
with particularity and failure to state a claim upon which relief may be granted.

983

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 3 Document 51

For all of these reasons, Defendant Governor Tony Evers moves this Court to dismiss
Plaintiff’s claims entirely and with prejudice without ever adjudicating Plaintiff’s motion for
injunctive relief.
This motion to dismiss must be heard before any motion for relief in this matter.
Although styled as temporary or preliminary relief, Plaintiff’s requested relief, namely
overturning the results of Wisconsin’s November 2020 presidential election, is effectively
permanent. Moreover, Plaintiff’s recent request for an evidentiary hearing makes clear that what
he seeks—without any discovery or basic adversarial development of evidence—is a trial and
final adjudication on the merits. Accordingly, Fed. R. Civ. P. 12(i) requires the Court to hear and
decide this motion before reaching Plaintiff’s request for injunctive relief.
The grounds for this motion are fully set forth in the accompanying brief.

Dated: December 7, 2020

Respectfully submitted,
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rsnyder@staffordlaw.com
Email: rmanthe@staffordlaw.com
Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
2

984

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 3 Document 51

(713) 651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
(202) 736-2200
psmith@campaignlegalcenter.org
Attorneys for Defendant, Governor Tony Evers

3

985

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 3 Document 51

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK L.
THOMSEN, MARGE BOSTELMAN, JULIE
M. GLANCEY, DEAN KNUDSON, ROBERT
F. SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official
capacity,
Defendants.
DEFENDANT COMMISSION AND COMMISSIONERS’ RESPONSE
OPPOSING PLAINTIFF’S MOTION FOR A TEMPORARY RESTRAINING
ORDER AND PRELIMINARY INJUNCTION
JOSHUA L. KAUL
Attorney General of Wisconsin
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants Wisconsin
Elections Commission and its members
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

986

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 30 Document 52

TABLE OF CONTENTS
INTRODUCTION .................................................................................................1
STATEMENT OF THE CASE .............................................................................2
ARGUMENT .........................................................................................................4
I.

Plaintiff has the burden to demonstrate that the Court
should overturn the audited election results. .................................4

II.

Plaintiff has failed to demonstrate that he is likely to succeed
on the merits of his claims. ..............................................................5
A.

B.

C.

987

This case has fatal jurisdictional and procedural
defects that would require dismissal. ....................................6
1.

Plaintiff lacks Article III standing to assert any
of his claims. ..................................................................6

2.

Laches bars Plaintiff’s unreasonably late
allegations. ....................................................................8

3.

The Eleventh Amendment precludes Plaintiff’s
claims seeking this Court to order state officials
to comply with state election law. ............................. 10

Plaintiff fails to state any valid federal claim. ................... 11
1.

Plaintiff fails to plead a claim under either the
Election or Electors clauses. ...................................... 11

2.

Plaintiff fails to state a claim for equal
protection and due process because he asserts
ordinary election irregularities that should be
handled under state law. ........................................... 13

3.

Plaintiff’s purported evidence is unpersuasive,
unlikely to meet basic evidentiary standards,
and does not support discarding the votes of
millions of Wisconsin residents. ................................ 17

Plaintiff’s requested remedy would unconstitutionally
disenfranchise Wisconsin voters. ........................................ 24

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 30 Document 52

III.

Plaintiff has failed to show that he will suffer irreparable
harm without a preliminary injunction. ....................................... 25

IV.

The balance of equities and public interest favor denying an
injunction........................................................................................ 26

CONCLUSION ................................................................................................... 27

988

ii
Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 30 Document 52

INTRODUCTION
Wisconsin held its general election on November 3 after months of careful
preparation and public announcement of election procedures. Since then, the votes
have been counted, audited, and many were counted again. The results are now
tallied and certified. The candidate who received the most votes for the office of
President of the United States is Vice President Joe Biden.
Plaintiff was a nominee to be an electoral college elector for candidate
President Donald Trump. He now, for the first time, alleges that the long-planned
election procedures were unlawful and that the outcome is additionally tainted by a
conspiracy dating back to the administration of Venezuelan president Hugo Chavez.
He offers no direct evidence that even a single vote was miscounted in Wisconsin, and
instead relies on conspiracy theories based on anonymous sources and inadmissible
evidence. His claims are entirely meritless.
On this basis, he asks for disenfranchisement of hundreds of thousands
Wisconsin voters and “an order instructing the Defendants to certify the results of
the General Election for Office of the President in favor of President Donald Trump”
in a preliminary ruling. (Dkt. 9 ¶ 139.) This unprecedented relief is unlawful, would
take the election out of the hands of Wisconsin voters, and is fundamentally
undemocratic. This Court should not reverse the outcome of the carefully planned
and reliably executed Wisconsin election.

989

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 30 Document 52

STATEMENT OF THE CASE
The November 2020 Wisconsin election was secure and reliable. Nearly 3.3
million Wisconsin voters cast ballots for the office of President of the United States.1
Those votes have been counted, audited, and many have even been re-counted. There
is zero indication of any fraud, or anything else that would call into question the
reliability of the election results. To the contrary, every indication is that the outcome
is correct.
A statewide audit of electronic voting machines used in the November election
found no systematic problems.2 To conduct this audit, the Commission randomly
selected 5% of all reporting units statewide—a sample that included at least one piece
of voting equipment in each of Wisconsin’s 72 counties and each kind of voting
equipment. It included 28 voting Dominion machines. (WEC Audit Memo 4.) The
audit then hand-counted 4.2% of all ballots, more than 140,000, and the hand-counted
results were compared to the results tabulated by each kind of voting machine. (WEC
Audit Memo 2.) Members of the public could attend the audit. (WEC Procedures
Memo 2.)
That audit did not “identif[y] any issues with the tabulation functionality of
the voting equipment nor did [it] uncover any programing issues with the machines

Wisconsin Elections Commission, WEC Canvass Reporting System, Canvas
Results for 2020 General Election 11/3/2020 6:00:00 AM https://elections.wi.gov/
sites/elections.wi.gov/files/Statewide%20Results%20All%20Offices%20%28prePresidential%20recount%29.pdf (Nov. 18, 2020).
2
The
Commission’s
Audit
Memo
is
publicly
available
at
https://elections.wi.gov/sites/elections.wi.gov/files/202012/2020%20Audit%20Program%20Update%20for%2012 1 2020%20Meeting%20FI
NAL.pdf
1

990

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 30 Document 52

on which results were audited.” (WEC Audit Memo 4.) Instead, it showed that “the
tabulation

voting

equipment”—including

the

challenged

Dominion

voting

machines— “performed up to certification standards and accurately recorded and
tabulated votes.” (WEC Audit Memo 5.) Although some “minor discrepancies” were
uncovered, the “vast majority . . . were due to human error . . . and only impacted one
or two votes . . . and were not indicative of equipment malfunction or failure.” (WEC
Audit Memo 5.) The Commission concluded that “the results of the audit did not
identify any programming errors that impacted how the voting equipment subject to
audit counted votes . . . . This expanded audit and random selection process effectively
confirmed the accuracy of voting equipment used in Wisconsin at the election.” (WEC
Audit Memo 8.)
Additionally, a recount confirmed that there were no errors in two major
counties. President Donald Trump requested a recount of ballots cast in Dane and
Milwaukee counties. That recount did not materially change the vote tallies for either
President Trump or Vice President Biden.3 More to the point, nothing uncovered
during the recount pointed to widespread fraud through hacked or otherwise
manipulated voting machines. President Trump, to be sure, identified various
categories of ballots that he contends were cast illegally, but he did not identify any
vote tallies maliciously altered.

2020 General Election Recount, https://elections.wi.gov/sites/elections.wi.
gov/files/2020-11/2020%20General%20Election%20Recount%2011-3020%20final.xlsx (Nov. 30, 2020).
3

991

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 30 Document 52

Moreover, the wild accusations of election unreliability, such as those in the
Plaintiff’s complaint, led federal agencies to investigate. That investigation revealed
nothing to substantiate the allegations. U.S. Attorney General William Barr even
specifically commented on the types of claims being made in this case, concluding:
There’s been one assertion that would be systemic fraud and that would
be the claim that machines were programmed essentially to skew the
election results. And the DHS and DOJ have looked into that, and so
far, we haven’t seen anything to substantiate that.4
These accusations were also denounced by Dominion itself, when it issued a public
statement specifically addressing the claims brought by Plaintiff’s counsel and
further demonstrating the frivolity of these claims.5
From the initial canvassing, through the audit, recount, and federal
investigation, there is no credible allegation of any material election irregularity. This
Court, and the public, can be confident that votes were correctly recorded and
counted.
ARGUMENT
I.

Plaintiff has the burden to demonstrate that the Court should
overturn the audited election results.
Plaintiff characterizes his request as preliminary, though the reality is that

this Court’s initial determination is likely to be effectively final for challenging

Balsamo, Michael, Disrupting Trump, Barr says no widespread election
fraud, AP News, https://apnews.com/article/barr-no-widespread-election-fraudb1f1488796c9a98c4b1a9061a6c7f49d (Dec. 1, 2020).
5 Dominion’s statement is available online. Dominion Voting, Statement
From
Dominion
on
Sidney
Powell’s
Charges
(Nov.
26,
2020),
https://www.dominionvoting.com/dominion-statement-on-sidney-powell-charges/.
4

992

4
Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 30 Document 52

Wisconsin’s presidential vote before inauguration. The type of immediate relief he
seeks is already a drastic remedy and is never awarded as a matter of right. Munaf
v. Geren, 553 U.S. 674, 689–90 (2008). The timing reality here makes his request
especially extraordinary.
Plaintiff carries the burden for his request. A preliminary injunction “may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter
v. Nat’l. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008); see also Goodman v. Ill. Dep’t
of Fin. & Prof’l Regulation, 430 F.3d 432, 437 (7th Cir. 2005) “A plaintiff seeking a
preliminary injunction must establish [1] that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the absence of preliminary relief, [3]
that the balance of equities tips in his favor, and [4] that an injunction is in the public
interest.” Illinois Republican Party v. Pritzker, 973 F.3d 760, 762 (7th Cir. 2020)
(quoting Winter, 555 U.S. at 20).
II.

Plaintiff has failed to demonstrate that he is likely to succeed on
the merits of his claims.

Plaintiff has no likelihood of success on the merits. This case has multiple
threshold defects that would require dismissal. Plaintiff lacks standing, his
inexplicably late claim is barred by laches, and the relief he requests is barred by the
Eleventh Amendment and Substantive Due Process Clause.
Turning to the individual causes of action, he has stated no constitutional
claim as a matter of law. The Elections and Electors Clauses do not create federal
claims for alleged vote-counting disputes and violations of state election law of the
kind alleged here do not amount to federal equal protection or due process claims.

993

5
Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 30 Document 52

Even if Plaintiff had a claim, his purported evidence is shockingly unreliable, is
unlikely to even meet basic evidentiary standards, and cannot possibly support
overturning the results of the election. Finally, the relief he seeks is nothing short of
mass disenfranchisement.
A.

This case has fatal jurisdictional and procedural defects that
would require dismissal.
1.

Plaintiff lacks Article III standing to assert any of
his claims.

Plaintiff is a registered voter and nominee to be a presidential elector for the
Republican Party. (Dkt. 9 ¶ 24.) Neither his status as a registered voter nor an elector
nominee establishes standing.
Plaintiff states that he is registered to vote in Wisconsin but does not even
allege that he actually voted in the November 2020 election. (Dkt. 9 ¶ 24.) He cannot
claim any injury by being simply registered. Even if he had voted, it is well
established a voter cannot allege the particularized harm necessary to bring a claim
based on alleged defects in other votes. This is so because the harm Plaintiff alleges
to have suffered would, if proven, be experienced equally by all voters in the state.
Martel v. Condos, No. 20-cv-131, 2020 WL 5755289, at *4 (D. Vt. 2020) (“If every voter
suffers the same incremental dilution of the franchise caused by some third-party’s
fraudulent vote, then these voters have experienced a generalized injury.”); see also
Moore v. Circosta, No. 20CV911, 2020 WL 6063332 at *14 (M.D.N.C. 2020); Donald
J. Trump for Pres., Inc. v. Cegavske, No. 20-cv-1445 JCM, 2020 WL 5626974, at *4–5
(D. Nev. 2020); Paher v. Cegavske, 457 F. Supp. 3d 919, 926 (D. Nev. 2020).

994

6
Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 30 Document 52

Plaintiff’s status as a presidential elector likewise does not grant him standing.
He cites Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020), for the proposition, never
recognized in the Seventh Circuit, that elector status grants one standing to challenge
election results. But the dissent in Carson persuasively explained why it does not:
Electors are not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office of elector
depends entirely on the outcome of the state popular vote for president
. . . . They are not presented to and chosen by the voting public for their
office, but instead automatically assume that office based on the public's
selection of entirely different individuals.
Id. at 1063 (Kelly, J., dissenting). Electors therefore do not have a “particularized
stake” in the election outcome beyond that of ordinary voters. Id. The Third Circuit
rejected a similar standing argument, holding instead that a congressional candidate
lacked Article III standing to assert nearly-identical claims to the ones Plaintiff
pursues here, showing that Carson is an outlier. See Bognet v. Sec’y Commonwealth
of Pennsylvania, No. 20-3214, 2020 WL 6686120, at *8 n.6 (3d. Cir. 2020). And just
today, the Eastern District of Michigan rejected an identical claim. King v. Whitmer,
No. 20-13134 (E.D. MI. December 7, 2020) (explaining that the court is unconvinced
regarding elector-nominee standing). Plaintiff’s elector status grants him no special
standing privileges. Even if the Plaintiff had standing for some claims, he particularly
lacks standing for any claim that violations of state elections law amount to a federal
claim under the Electors Clause. For Electors Clause claims, even candidateplaintiffs fare no better in the standing inquiry than other citizens. See, e.g., Bognet,
2020 WL 6686120 at *8. This is because every candidate, just like every other citizen,
is in precisely the same position. See id. If an Electors Clause claim belongs to anyone,

995

7
Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 30 Document 52

it belongs “only to the [legislature].” Id. at *7. Here, for claimants like Plaintiff who
are not the legislature, and bear not even a “conceivable relationship to state
lawmaking processes, they lack standing to sue over the alleged usurpation of the
[legislature’s] rights under the . . . Electors Clause[ ].” Id. at *7.
2.

Laches
bars
allegations.

Plaintiff’s

unreasonably

late

Plaintiff inexplicitly waited until after the Wisconsin election, after the
canvassing, after the recount, after the audit, after results were certified, and indeed
until the eve of the electoral college vote, to bring his claim of state law violations and
widespread fraud that allegedly originated years ago in the era of Hugo Chavez’s
Venezuelan presidency. If the doctrine of laches means anything, it is that Plaintiff
here cannot overturn the results of a completed and certified election through
preliminary relief in this late-filed case.
“Laches arises when an unwarranted delay in bringing a suit or otherwise
pressing a claim produces prejudice.” Jones v. Markiewicz-Qualkinbush, 842 F.3d
1053, 1060 (7th Cir. 2016) (citation omitted). “The obligation to seek injunctive relief
in a timely manner in the election context is hardly a new concept.” Id. at 1060–61.
“In the context of elections, . . . any claim against a state electoral procedure must be
expressed expeditiously.” Fulani v. Hogsett, 917 F.2d 1028, 1031 (7th Cir. 1990).
Plaintiff’s tardy claims meets every element laches.
Plaintiff waited to challenge widely-known procedures until after millions of
voters cast their ballots in reliance on those procedures. That delay is unreasonable
under both the law and common sense and this case should be dismissed See Wood v.

996

8
Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 30 Document 52

Raffensperger, No. 20-14418, 2020 WL 7094866, at *6 (11th Cir. Dec. 5, 2020)
(Dismissing a case as moot where Plaintiff challenged vote certification after the
election and after results were certified.); (King, No. 20-13134 Dkt. 62:19 (“Plaintiffs
could have lodged their constitutional challenges much sooner than they did, and
certainly not three weeks after Election Day and one week after certification of almost
three million votes. The Court concludes that Plaintiffs’ delay results in their claims
being barred by laches”).)
Just for example, on the issue of “indefinitely confined” voters, the legal issues
were litigated in state court almost eight months ago. See Pet. for Original Action,
date March 27, 2020, Supreme Court of Wisconsin, No. 2020AP000557-OA. Plaintiff
obviously could have pressed this indefinite confinement issue in the many months
between when it emerged and the November general election, thus allowing
Wisconsin election officials to adjust accordingly.
The prejudice caused by Plaintiff’s delay is profound. Plaintiff sat on his claims
allowing millions of Wisconsinites to vote in reliance on those procedures, only to
attack those decisions after they became irreversible. See Fulani, 917 F.2d at 1031
(“As time passes, the state’s interest in proceeding with the election increases in
importance as . . . irrevocable decisions are made.”). This is precisely the type of
prejudice the laches doctrine exists to prevent.
Nothing less than the right of every Wisconsinite to have their vote for
President counted is at stake if Plaintiff’s requests are granted. Indeed, as the U.S.
Supreme Court explains, “[c]onfidence in the integrity of our electoral processes is

997

9
Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 30 Document 52

essential to the functioning of our participatory democracy.” Purcell v. Gonzalez,
549 U.S. 1, 4 (2006). One could not shake the public’s confidence in our electoral
process more vigorously than by allowing unforeseeable post-election legal challenges
to invalidate hundreds of thousands of votes that were cast in reliance on election
officials’ guidance.
3.

The Eleventh Amendment precludes Plaintiff’s
claims seeking this Court to order state officials to
comply with state election law.

Plaintiff fundamentally asks this court for a declaration and injunction against
state officials for alleged violations of state election law that he describes as
“Violations of Wisconsin Election Code.” (Dkt. 9:11.) Such a claim is barred by the
Eleventh Amendment.
The Eleventh Amendment bars “relief against state officials on the basis of
state law, whether prospective or retroactive.” Pennhurst State School & Hospital v.
Halderman, 465 U.S. 89, 106 (1984). The Supreme Court has explained that “it is
difficult to think of a greater intrusion on state sovereignty than when a federal court
instructs state officials on how to conform their conduct to state law. Such a result
conflicts directly with the principles of federalism that underlie the Eleventh
Amendment.” Id.; see also Rose v. Bd. of Election Comm’rs for City of Chi., 815 F.3d
372, 375 n.2 (7th Cir. 2016) (“[A]ny argument to the effect that the state did not follow
its own laws is barred by the Eleventh Amendment.”).
Plaintiff’s federal constitutional claims turn almost entirely on his allegations
about state election officials improperly administering state election law. His

998

10
Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 30 Document 52

Elections and Electors Clause claim turns on “three separate instances where
Defendants violated the Wisconsin Election Code,” (Dkt. 9 ¶¶ 104–06), just as his
Equal Protection Clause claim rests on how “Defendants failed to comply with the
requirements of the Wisconsin Election Code” (Dkt. 9 ¶ 116) and his due process claim
relies on “Defendants[’] violation of the Wisconsin Election Code” (Dkt. 9 ¶ 129). Just
as in the parallel case from Michigan decided today, “the Eleventh Amendment bars
Plaintiffs’ claims against Defendants”. (King, No. 20-13134, Dkt. 62:13.) Plaintiff
fundamentally asks this Court to order state officials to follow state election law,
relief that the Eleventh Amendment and Pennhurst squarely bars.
B.

Plaintiff fails to state any valid federal claim.
1.

Plaintiff fails to plead a claim under either the
Election or Electors clauses.

In Count I of the Amended Complaint, Plaintiff alleges violations of the federal
Constitution’s Elections and Electors Clauses which vest authority in “the
Legislature” of each state to regulate “[t]he Times, Places, and Manner of holding
Elections for Senators and Representatives”, U.S. Const. art. I, § 4, cl. 1., and to direct
the selection of presidential electors, U.S. Const. art. II, § 1, cl. 2, respectively. The
cause of action rests entirely on allegations that three aspects of administrative
guidance issued by the Commission were contrary to state election law. (Dkt. 9
¶¶ 104–106.) Those claims fail as a matter of law because his disagreement with how
state officials administered state elections law does not state a violation of the
Elections and Electors Clause.

999

11
Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 30 Document 52

It is black-letter law that “’[a] violation of state law does not state a claim under
§ 1983,’ and, more specifically, ‘a deliberate violation of state election laws by state
election officials does not transgress against the Constitution.’” Shipley v. Chi. Bd. of
Election Commissioners, 947 F.3d 1056, 1062 (7th Cir. 2020) (citation omitted); see
also Bognet, 2020 WL 6686120, *6 (“[F]ederal courts are not venues for plaintiffs to
assert a bare right ‘to have the Government act in accordance with law.’”) (citation
omitted); Martinez v. Colon, 54 F.3d 980, 989 (1st Cir. 1995) (“[T]he Constitution is
not an empty ledger awaiting the entry of an aggrieved litigant’s recitation of alleged
state law violations—no matter how egregious those violations may appear within
the local legal framework.”).
This non-interference principle rests on a “caution against excessive
entanglement of federal courts in state election matters”:
The very nature of the federal union contemplates separate functions for
the states. If every state election irregularity were considered a federal
constitutional deprivation, federal courts would adjudicate every state
election dispute, and the elaborate state election contest procedures,
designed to assure speedy and orderly disposition of the multitudinous
questions that may arise in the electoral process, would be superseded
by a section 1983 gloss.
Bodine v. Elkhart Cty. Election Bd., 788 F.2d 1270, 1272 (7th Cir. 1986).
Plaintiff’s theory here violates this core federalism principle, as it rests solely
on three aspects of administrative guidance issued by the Commission. (Dkt. 9
¶¶ 104–106.) None of these alleged state law violations can support a federal
constitutional claim under cases like Shipley and Bodine. The general rule that “[a]
violation of state law does not state a claim under § 1983,” Shipley, 947 F.3d at 1062,

1000

12
Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 30 Document 52

would no longer have any teeth, and plaintiffs could evade it simply by alleging an
Elections Clause violation. This would threaten to replace Wisconsin’s “elaborate
state election contest procedures” with federal court intervention in the
“multitudinous questions that may arise in the electoral process,” just as Bodine
warned against. 788 F.2d at 1272 (citation omitted); (see also King, No. 20-13134,
Dkt. 62:29–30 (holding in a nearly identical case that “Plaintiffs lack standing to sue
under the Elections and Electors Clause”).) Indeed, this collision between federal and
state proceedings can be seen playing out here and now. This week, President Trump
is litigating his challenge to Wisconsin’s recount results through the state procedures
under Wis. Stat. § 9.01. Donald J. Trump v. Joseph R. Biden, No. 20CV7092 (Wis.
Cir. Ct. Milwaukee Cty.); Donald J. Trump v. Joseph R. Biden, No. 20CV2514 (Wis.
Cir. Ct. Dane Cty.) (consolidated with Milwaukee County case No. 20CV007092.).
Simultaneously, Plaintiff here is challenging the count in this Court. It would be hard
to better illustrate the federalism concerns raised by opening the federal courthouse
doors to Plaintiff’s state election law grievances.
2.

Plaintiff fails to state a claim for equal protection
and due process because he asserts ordinary
election irregularities that should be handled under
state law.

In counts II and III, Plaintiff alleges constitutional equal protection and due
process claims. But he states no constitutional claim; he merely makes state-law
claims that are fully addressable through state procedures.
The federal “Constitution is not an election fraud statute.” Bodine, 788 F.2d
at 1271. “It is not every election irregularity . . . which will give rise to a constitutional

1001

13
Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 30 Document 52

claim.” Id. The federal constitution “is implicated only when there is ‘willful conduct
which undermines the organic processes by which candidates are elected.’” Id. at 1272
(emphasis

omitted)

(citation

omitted).

Therefore,

“garden

variety

election

irregularities that could have been adequately dealt with through the procedures set
forth in [state] law” do not support constitutional due process claims. Id.; see also
Bennett v. Yoshina, 140 F.3d 1218, 1226 (9th Cir. 1998) (“[G]arden variety election
irregularities do not violate the Due Process Clause, even if they control the outcome
of the vote or election.”).
Plaintiff relies on a vote-dilution theory. (Dkt. 9 ¶¶ 114, 125–26.) This theory
fails in its premise because he does not allege that he voted. (Dkt. 9 ¶ 24.) With no
vote, there is nothing to dilute, and his voter-dilution claim fails in its premise.
Additionally, Plaintiffs’ novel version of vote dilution could not support a
federal claim, even if he had voted. Recognized vote dilution claims involve state laws
that structurally disadvantage certain groups in the voting process. For instance,
Reynolds v. Sims, 377 U.S. 533 (1964), held that state legislative districts must be
apportioned

by

population

to

avoid

diluting

the

votes

of

residents

in

disproportionately populous districts. Other vote dilution claims similarly target
legislative apportionment schemes that disadvantage minorities in violation of either
equal protection or the Voting Rights Act of 1965 (“VRA”). See, e.g., Thornburg v.
Gingles, 478 U.S. 30, 34 (1986) (multimember districts in North Carolina violated
VRA by diluting black vote); Miller v. Johnson, 515 U.S. 900, 911 (1995) (“[A] vote
dilution claim alleges that the State has enacted a particular voting scheme as a

1002

14
Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 30 Document 52

purposeful device ‘[t]o minimize or cancel out the voting potential of racial or ethnic
minorities.’” (citation omitted)).)
Plaintiff’s novel vote dilution theory, in contrast, rests on alleged vote counting
violations and does not fit within this recognized malapportionment framework, as
the Third Circuit held just days ago in Bognet, 2020 WL 6686210, at *11. There,
individual voters alleged that votes arriving or cast after election day were unlawfully
counted, thereby diluting the plaintiffs’ votes in an unconstitutional manner. Id. at
*9. The Third Circuit rejected this theory, explaining that “[c]ontrary to [this]
conceptualization, vote dilution under the Equal Protection Clause is concerned with
votes being weighed differently.” Id. Recognizing this unprecedented kind of dilution
claim would upset the delicate balance between state and federal authority over
elections:
[I]f dilution of lawfully cast ballots by the “unlawful” counting of
invalidly cast ballots “were a true equal-protection problem, then it
would transform every violation of state election law (and, actually,
every violation of every law) into a potential federal equal-protection
claim requiring scrutiny of the government’s ‘interest’ in failing to do
more to stop the illegal activity.”
Bognet, 2020 WL 6686210, at *11 (citation omitted).
Plaintiffs’ novel vote dilution claim would implicate practically any state
election, because “[i]n just about every election, votes are counted, or discounted,
when the state election code says they should not be. But the Constitution ‘d[oes] not
authorize federal courts to be state election monitors.’” Donald J. Trump for
President, Inc. v. Boockvar, No. 20-cv-966, 2020 WL 5997680, at *48 (Oct. 10, 2020)
(second alteration in original) (citing Gamza v. Aguirre, 619 F.2d 449, 454 (5th Cir.

1003

15
Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 30 Document 52

1980)). Yet state election monitors is exactly what federal courts would become, if
unlawfully cast votes alone sufficed to state a constitutional claim.6
Plaintiff does not cite a single vote dilution case resting on allegedly illegal
votes. Instead, Plaintiff relies primarily on Reynolds—again, a case about dilution
caused by malapportionment. 377 U.S. at 555 (Dkt. 9 ¶ 114.). But Reynolds relied on
cases involving whether Congress had the power to criminalize certain state election
misconduct under federal law. See Ex parte Siebold, 100 U.S. 371 (1879), and United
States v. Saylor, 322 U.S. 385 (1944). As the Third Circuit recognized, Reynolds’
citation to those two criminal cases does not mean that individual voters may assert
civil vote dilution claims based solely on illegal votes. See Bognet, 2020 WL 6686120,
at *14. Plaintiff also cites Donald J. Trump for President, Inc. v. Bullock,
No. CV 20-66-H-DLC, 2020 WL 5810556 (Sept. 2020), but that case merely
“assum[ed] such a claim exists” only to dismiss it based on a lack of evidence.
Rejecting Plaintiff’s “illegal vote” dilution theory would not leave the integrity
of Wisconsin’s elections without safeguards. A wide range of regulations govern voter

Many other federal courts have rejected these kinds of vote dilution claims.
See also, e.g., Republican Party of Pennsylvania v. Cortes, 218 F. Supp. 3d 396, 407
(E.D. Pa. 2016) (“[V]ote dilution cases do not extend to “speculation that fraudulent
voters may be casting ballots elsewhere.”); Donald J. Trump for President, Inc. v.
Boockvar, No. 2:20-CV-966, 2020 WL 5997680, at *59 (W.D. Pa. Oct. 10, 2020)
(rejecting vote dilution claim resting on potential fraud that did not involve
“malapportionment, disenfranchisement, or intentional discrimination”); Minnesota
Voters All. v. Ritchie, 720 F.3d 1029, 1033 (8th Cir. 2013) (rejecting vote dilution claim
resting on “illegally cast votes” by election day registrants, absent allegations of
“discriminatory or other intentional, unlawful misconduct” by election officials or
“willful and illegal conduct [by] election officials [that] results in fraudulently
obtained or fundamentally unfair voting results”).
6

1004

16
Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 30 Document 52

registration and absentee voting to ensure that only eligible residents receive and
cast absentee ballots. See generally Wis. Stat. ch. 6. If those regulations are purposely
evaded, state election fraud prosecutions may ensue. See generally Wis. Stat. § 12.13.
And recounts are the ultimate backstop, where votes may be identified, challenged,
and, if appropriate, invalidated. See generally Wis. Stat. § 9.01. The crucial point is
that our system of federalism entrusts electoral integrity to these state-level
protections, not to federal constitutional claims by individual voters. Plaintiff’s vote
dilution claim rests on a fatally flawed legal theory and fails as a matter of law.
3.

Plaintiff’s purported evidence is unpersuasive,
unlikely to meet basic evidentiary standards, and
does not support discarding the votes of millions of
Wisconsin residents.

Count IV of the Amended Complaint alleges massive election fraud through an
“insidious, and egregious ploy” to falsely report the outcome of the 2020 Wisconsin
general election. (Dkt. 9 ¶¶ 2, 132–135.) The general theory is that foreign oligarchs
and dictators created a voting system called “Smartmatic” to help Hugo Chavez in
Venezuelan elections. (Dkt. 9 ¶¶ 7–8; 9-1 ¶¶ 13–20.) There is no allegation that
Smartmatic is used in Wisconsin. Instead, an anonymous declarant says that
“software of Dominion and other election tabulating companies relies upon software
that is a descendant of . . . Smartmatic” and Plaintiffs allege that “Dominion Systems
derive from the software designed by Smartmatic Corporation.” (Dkt. 9 ¶ 7;
9-1 ¶ 21.)
Plaintiff then makes the incredible, and implausible, leap that Dominion
machines in Wisconsin were hacked in 2020. He asks the court to overturn the

1005

17
Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 30 Document 52

election results because anonymous declarants say that a different system, used in a
different country, for a different election, was manipulated. This would not even pass
Rule 9(b) pleadings standards, let alone support the unprecedented and
extraordinary act of having a federal court reverse the outcome of a certified state
election.
Things get even worse looking past the pleadings to the supporting documents.
Even a facial review shows a complete lack of reliable evidence. Much of Plaintiff’s
purported evidence comes from undisclosed witnesses or is completely irrelevant to
Wisconsin. What little even mentions Wisconsin is based on plainly unreliable data
and reasoning. His purported evidence does not meet admissibility standards and is
not in the ballpark of supporting his extraordinary request.
Of Plaintiff’s 18 proffers of evidence, five are from anonymous declarants
where the names of the witness or expert are redacted. (Dkt. 9-1; 9-4; 9-12; 9-13;
9-19.) This makes it impossible to evaluate the legitimacy or potential bias of the
evidence and those declarations should be disregarded. Even hypothetically looking
past the secret sources, the affidavits are astoundingly thin. Exhibit 1 propounds at
length about the integrity of past elections in Venezuela but offers no information
about the 2020 Wisconsin election. Exhibit 12 is from a self-proclaimed “white-hat
hacker” who testifies to the unremarkable fact that Dominion’s public website has
internet interrelationships in other countries, but makes absolutely no connection to
Wisconsin voting machines or data security. (Dkt. 9-12:1.) Exhibit 13 is from an
anonymous source who purports to be an “amateur network tracer and typographer”

1006

18
Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 30 Document 52

whose third-hand amateur opinions about corporate relationships amount to a
conspiracy theory. (Dkt. 9-13:1.)
The documents include two anonymous expert reports. (Dkt. 9-4; 9-19.) Exhibit
4 offers a terse statistical analysis culminating in a graphic where the author
identifies “large red dots” on a vote ratio chart where Biden overperformed
predictions in counties using Dominion voting machines. (Dkt. 9-4:2–3.) It is difficult
to discern what, if anything, the scatter plot shows, and the report notably leaves
unexplained that nearly all of the graph’s “large dot” indicators, red and blue, show
overperformance, which is more consistent with the conclusion that more voters
turned out and Biden overperformed everywhere, which is why he won the election.
That one candidate received more than expected votes at a particular voting machine
is entirely unremarkable in an election with high turnout where that candidate won.
And anonymous expert report Exhibit 19 leads its analysis with the unhelpful
statement that “it is possible to obtain rough estimates on how vote fraud could
possibly have effected [sic] the election.” (Dkt. 9-19:2.) As if that were not speculative
enough, the report indicates that its Wisconsin “data was obtained from the twitter
account of @shylockh, who derived his sources from the New York Times and in some
cases from the unofficial precinct reports.” (Dkt. 9-19:8–9.) Such anonymous, bare
speculation on third- or fourth-hand information is unpersuasive.
Of the documents that are at least authored, many have nothing to do with the
Wisconsin election. (Dkt. 9-6; 9-7; 9-8; 9-10; 9-11; 9-14; 9-15; 9-16; 9-18.) For example,
Exhibit 6 is a statement from a Colorado resident who reports going to an Antifa

1007

19
Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 30 Document 52

meeting and overhearing a conversation where he believes he heard a person named
“Eric” state that he is making sure Trump does not win the election. (Dkt. 9-6:2.)
Through a series of Google searches and listeners of his podcast, he opines that a
former employee of Dominion named Eric has altered the election. (Dkt. 9-6:2–6.)
This Googled evidence, based on hearsay at an alleged meeting in Colorado, is not
reliable evidence of election fraud in Wisconsin.
Exhibit 7 is from a person who observed polls in Atlanta, Georgia, in June and
August of 2020 and does not even mention Wisconsin. Exhibit 8 opines on the political
status of Venezuela. Exhibit 14 is from a person who reports that he has reviewed
materials about Dominion voting systems, all from public websites, but offers no
information about Wisconsin election processes. And Exhibits 10, 11, 15, 16 and 18
are generalized articles or letters about election systems generally that do nothing to
prove Plaintiff’s claims that vote tabulating in Wisconsin is inaccurate.
The very few non-anonymous filings that even discuss the Wisconsin election
are facially unpersuasive and likely do not even meet evidentiary reliability
standards. Expert testimony is inadmissible unless it: will help the trier of fact to
understand the evidence; is based on sufficient facts or data; is the product of reliable
principles and methods; and the expert has reliably applied the principles and
methods to the facts of the case. Fed. R. Evid. 702. In assessing the admissibility of
expert testimony, courts must ensure that the testimony is both reliable and relevant.
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 597 (1993). District
courts “must evaluate: (1) the proffered expert’s qualifications; (2) the reliability of

1008

20
Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 30 Document 52

the expert’s methodology; and (3) the relevance of the expert’s testimony.”
Gopalratnam v. Hewlett-Packard Co., 877 F.3d 771, 779 (7th Cir. 2017). The party
offering the expert testimony has the burden of establishing that the proffered
testimony satisfies Fed. R. Evid. 702. Id. at 782.
Plaintiff offers four expert opinions in support of his request to overturn the
Presidential election. (Dkt. 9-2; 9-3; 9-9; 9-17.) None meet the standard in Rule 702.
One is a re-filing of a report that was previously filed in a state court case, from
Matthew Braynard. (Dkt. 9-3.) Braynard does not appear to be qualified to offer the
opinions in his report. He offers statistical conclusions based on a purported sampling
of voters in certain categories, which he opines are representative of various larger
categories of voters. Braynard has no formal education in statistics or statistical
surveys. Instead, his report indicates he has a degree in business administration.
(Dkt. 9-3:3.) It is dubious whether Braynard’s opinions are based on “sufficient facts
and data” or whether his methods are reliable. Braynard says he used voter
information provided by “L2 Political” (Dkt. 9-3:3), but it is unknown whether this
data reliably reflects information on Wisconsin voters. He also purports to rely on a
database of address changes, but it is unclear whether this database accurately
reflects electors’ correct addresses for voting purposes. Further, his conclusions are
based on the results of telephone calls made by call centers and “social media
researchers” that are of unknown quality. (Dkt. 9-3:3.) These telephone surveys could
easily include bad data and unreliable methods, given that the report does not
disclose exactly how these surveys were conducted. Plaintiff has not shown that

1009

21
Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 30 Document 52

phone surveys like these can reliably obtain information about voters or that his
limited sample of voters who responded is representative of the whole.
Next is the report of William Briggs, which exclusively used the flawed data
from Braynard. (Dkt. 9-2:1.) Even apart from this flawed underlying data, Briggs’s
analyses are woeful. He concludes that thousands of people received absentee ballots
who did not request one. (Dkt. 9-2:1.) His report fails to account for voters who have
requested that absentee ballots be sent automatically for every election, which would
fully explain his concern. Even setting aside whether that is even an indicia of fraud,
one would assume that to reach this conclusion he identified people who received a
ballot without requesting one. Not so. His report explains that he used phone survey
results that asked, for example, whether a person requested an absentee ballot.
(Dkt. 9-2:5.) His report indicates that only 433 people, out of the millions of Wisconsin
voters, completed the survey. (Dkt. 9-2:5.) He assumes that this tiny sample was
representative of the whole state and scaled the number up to predict the total
number of people who requested ballots, and compared that to the number of people
receiving ballots. (Dkt. 9-2:1.) What he did not do is the obvious analysis of asking
anyone whether they received a ballot without asking for one. As he concedes in his
report: “Survey respondents were not asked if they received an unrequested ballot . .
. This is clearly a lively [sic] possibility . . . no estimates or likelihood can be calculated
for this potential error due to absence of data.” (Dkt. 9-2:2.) This type of methodology
failure pervades his report.

1010

22
Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 30 Document 52

The final two are the Keshel and Ramshland Jr. opinions, which are likewise
unpersuasive. (Dkt. 9:9, 17.) Keshel is a data analysist with no apparent elections
training but who reports that he has “political involvement requiring knowledge of
election trends and voting behavior.” (Dkt. 9-9:1.) He used uncertified information
from an “unofficial tracker” to determine that the 2020 elections went “against the
trends of the previous election” to elect a Democratic candidate. (Dkt. 9-9:1, 4.) But
this is no more than acknowledging that a Republican won in 2016 and a Democrat
won in 2020. Keshel refers to this as “suspicious vote totals” but it does not show any
more than a different outcome in 2020 than in the past.
Ramshland Jr. does not disclose his data source other than “[m]y colleague and
I . . . have studied the information that was publicly available.” (Dkt. 9-17:4.) From
this, he identifies “red flags” including a very high turnout in several Wisconsin
counties. (Dkt. 9-17:9.) He concludes that fraud occurred because many votes for
Biden were counted late in the tabulating process. (Dkt. 9-17:4–5.) But, as now been
repeatedly publicly explained, this occurred because absentee ballots, which favored
Democratic candidates, were counted together late in the election day. The report also
“normalized” the turnout to a lower rate and found that “the excess votes are at least
384,085 over the maximum that could be expected. (Dkt. 9-17:9.) But this
“normalization” is nothing more than lowering the vote count. He concludes on this
analysis that there were up to 384,085 “illegal votes that must be disregarded.”
(Dkt. 9-17:12.) The idea that Wisconsin should discard votes because more people
voted than normal is absurd.

1011

23
Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 30 Document 52

This unpersuasive and unreliable evidence stands in contrast to an actual
hand-count audit of the machines used in the election, which showed no fraud. Like
in the parallel Michigan case, “With nothing but speculation and conjecture that votes
for President Trump were destroyed, discarded or switched to votes for Vice President
Biden,

Plaintiffs’

equal

protection

claim

fails.”

(King,

No.

20-13134,

Dkt. 62:29–30.) This Court should not conclude, on Plaintiff’s proffer of anonymous
declarations, hearsay, and facially faulty analyses, that Wisconsin should disregard
the outcome of the election for President.7
C.

Plaintiff’s
requested
remedy
disenfranchise Wisconsin voters.

would

unconstitutionally

Regardless of all of the other reasons Plaintiff’s claims fail, the remedy he
seeks—the exclusion of hundreds of thousands of votes in Wisconsin—would violate
these voter’s federal due process rights by retroactively overriding election
procedures that those voters relied on and nullifying votes cast for Vice President
Biden based on a speculative and far-fetched conspiracy theory of voter fraud.
Once a state legislature has directed that the state’s electors are to be
appointed by popular election, the people’s “right to vote as the legislature has
prescribed is fundamental.” Bush v. Gore, 531 U.S. 98, 104 (2000) (per curiam). That
fundamental right to vote includes “the right of qualified voters within a state to cast

Plaintiff’s request for the Court to “seize and impound” all equipment
statewide, is also misdirected. (Dkt. 9 ¶ 48.) The Commission does not own or have
custody over such election equipment. See Wis. Stat. 5.91; Wis. Admin. Code ch. EL
7; https://elections.wi.gov/elections-voting/security (explaining that municipalities
purchase the equipment.)
7

1012

24
Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 30 Document 52

their ballots and have them counted.” United States v. Classic, 313 U.S. 299, 315
(1941).
Due process is violated when voters rely on an established election procedure
and significant disenfranchisement results from a change in the procedures postelection. Bennett, 140 F.3d at 1227; Northeast Ohio Coal. for the Homeless v. Husted,
837 F.3d 612 (6th Cir. 2016) (finding no reason to invalidate a ballot when there was
no evidence of voter fraud.); Griffin v. Burns, 570 F.2d 1065, 1079 (1st Cir. 1978)
(retroactive invalidation of absentee ballots violated due process). Those conditions
would be squarely met here by Plaintiff’s requested relief.
Wisconsin voters who reasonably relied on the established voting procedures
would be disenfranchised by the thousands, raising serious concerns of a due process
violation. To throw out the votes of 181,440 Wisconsin voters based on an implausible
conspiracy regarding voting machine would violate the constitutional rights of these
voters.
III.

Plaintiff has failed to show that he will suffer irreparable harm
without a preliminary injunction.
Plaintiff has made no meaningful showing that state law violations or fraud

conspiracies violated his voting rights or harmed his status as a nominated elector
for an unsuccessful candidate. He faces no harm by denial of his injunction; indeed
such order would only harm the millions of Wisconsin voters who determined the
outcome of the election.

1013

25
Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 30 Document 52

IV.

The balance of equities and public interest favor denying an
injunction.
The public would be severely harmed by Plaintiff’s requested relief.

Disenfranchising hundreds of thousands of Wisconsin voters on the basis of a flimsy
conspiracy theory outweighs the scant chance that Plaintiff will succeed on his claims.
It would also declare Donald Trump as the winner in Wisconsin—relief Plaintiff has
made no attempt at proving would have occurred, even if all of his baseless and
fanciful claims succeeded. (See Dkt. 9 ¶ 59.)
As explained by the Third Circuit, “[d]emocracy depends on counting all lawful
votes promptly and finally, not setting them aside without weighty proof. The public
must have confidence that our Government honors and respects their votes.” Donald
J. Trump for President, Inc. v. Pennsylvania, No. 20-3371, 2020 WL 7012522, at *9
(3d Cir. Nov. 27, 2020). The “public interest strongly favors finality, counting every
lawful voter’s vote, and not disenfranchising . . . voters who voted by mail.” Id. That
is because “[d]emocracy depends on counting all lawful votes promptly and finally,
not setting them aside without weighty proof.” Id.

1014

26
Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 30 Document 52

CONCLUSION
Plaintiff’s request for a temporary restraining order and preliminary
injunction should be denied.
Dated this 7th day of December 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants Wisconsin
Elections Commission and its members
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1015

27
Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 30 Document 52

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their
official capacities, GOVERNOR TONY
EVERS, in his official capacity,
Defendants.

DEFENDANTS WISCONSIN ELECTIONS COMMISSION
AND ITS MEMBERS’ MOTION TO DISMISS

Defendants Wisconsin Elections Commission, Ann S. Jacob, Mark L.
Thomsen, Marge Bostelman, Julie M. Glancey, Dean Knudson, and Robert F.
Spindell, Jr., by their attorneys, hereby move the Court for an order as follows.
Pursuant to Federal Rules of Civil Procedure 12(b)(6), these Defendants
move this court for an order dismissing the complaint against them. As a basis
for this motion, these Defendants incorporate by reference their brief in
support of the motion to dismiss, which is filed herewith.

1016

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 2 Document 53

Plaintiff is notified that pursuant to Civil L. R. 7(b) (E.D. Wis.), his
response in opposition to this motion must be filed within 21 days of service of
this motion.
Dated this 7th day of December 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1017

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 2 Document 53

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK L.
THOMSEN, MARGE BOSTELMAN, JULIE
M. GLANCEY, DEAN KNUDSON, ROBERT
F. SPINDELL, JR., in their official capacities,
GOVERNOR TONY EVERS, in his official
capacity,
Defendants.
DEFENDANTS WISCONSIN ELECTIONS COMMISSION
AND ITS MEMBERS’ BRIEF IN SUPPORT OF MOTION TO DISMISS
JOSHUA L. KAUL
Attorney General of Wisconsin
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants Wisconsin
Elections Commission and its members
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1018

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 26 Document 54

TABLE OF CONTENTS

INTRODUCTION .................................................................................................1
MOTION TO DISMISS STANDARDS ................................................................2
ARGUMENT .........................................................................................................3
A.

B.

C.

This case has fatal jurisdictional and procedural
defects that require dismissal. ...............................................4
1.

Plaintiff lacks Article III standing to assert any
of his claims. ..................................................................4

2.

Laches bars Plaintiff’s unreasonably late
allegations. ....................................................................6

3.

The Eleventh Amendment precludes Plaintiff’s
claims seeking this Court to order state officials
to comply with state election law. ................................8

Plaintiff fails to state any valid federal claim. ......................9
1.

Plaintiff fails to plead a claim under either the
Election or Electors Clauses. ........................................9

2.

Plaintiff fails to state a claim for equal
protection and due process because he asserts
ordinary election irregularities that should be
handled under state law. ........................................... 11

3.

Plaintiff’s purported evidence is unpersuasive,
unlikely to meet basic evidentiary standards,
and does not support discarding the votes of
millions of Wisconsin residents. ................................ 15

Plaintiff’s requested remedy would unconstitutionally
disenfranchise Wisconsin voters. ........................................ 22

CONCLUSION ................................................................................................... 23

i

1019

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 26 Document 54

Defendants Wisconsin Elections Commission, Ann S. Jacob, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean Knudson, and Robert F. Spindell, Jr., in
their official capacities, by their attorneys, hereby submit this brief in support of their
motion to dismiss.

INTRODUCTION
Wisconsin held its general election on November 3 after months of careful
preparation and public announcement of election procedures. Since then, the votes
have been counted, audited, and many were counted again. The results are now
tallied and certified. The candidate who received the most votes for the office of
President of the United States is former Vice President Joe Biden.
Plaintiff William Feehan was a nominee to be an electoral college elector for
candidate President Donald Trump. He now, for the first time, alleges that the longplanned election procedures were unlawful and that the outcome is additionally
tainted by a conspiracy dating back to the administration of Venezuelan president
Hugo Chavez. He relies on conspiracy theories based on anonymous sources and
inadmissible evidence. On this basis, he asks for disenfranchisement of 318,012
Wisconsin voters and “an order instructing the Defendants to certify the results of
the General Election for Office of the President in favor of President Donald Trump.”
(Dkt. 9 ¶ 139.)
Plaintiff Feehan lacks standing and asks for unlawful relief that is plainly
barred by latches. Additionally, his claims fail as a matter of law. He states no federal
cause of action and his fraud-based conspiracy theory is not pled with particularly, is

1020

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 26 Document 54

implausible, and is purportedly supported by inadmissible and unreliable evidence.
This case should be dismissed.
MOTION TO DISMISS STANDARDS
A complaint must be dismissed pursuant to Rule 12(b)(6) of the Federal Rules
of Civil Procedure when as here, the plaintiff has failed to “state a claim upon which
relief can be granted.” Fed. R. Civ. P. 12(b)(6). To survive a motion to dismiss, a
“complaint must contain ‘enough facts to state a claim to relief that is plausible on its
face’ and also must state sufficient facts to raise a plaintiff’s right to relief above the
speculative level.” Bissessur v. Indiana Univ. Bd. of Trustees, 581 F.3d 599, 602
(7th Cir. 2009) (citation omitted). “A claim has facial plausibility ‘when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.’” Id. (citation omitted). “The
plausibility standard is not akin to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted unlawfully.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (citation omitted).
“Threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id. While detailed factual allegations are not
required, “labels and conclusions, and a formulaic recitation of the elements of a cause
of action will not do.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007). “An
inadequate complaint will not survive a motion to dismiss simply because the
defendants managed to figure out the basic factual or legal grounds for the claims.”
Adams v. City of Indianapolis, 742 F.3d 720, 729 (7th Cir. 2014). When, as here, “it

1021

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 26 Document 54

is ‘clear from the face of the complaint, and matters of which the court may take
judicial notice, that the plaintiff’s claims are barred as a matter of law,’ dismissal is
appropriate.” Thompson v. Progressive Universal Ins. Co., 420 F. Supp. 3d 867, 869
(W.D. Wis. 2019) (quoting Parungao v. Cmty. Health Sys., Inc., 858 F.3d 452, 457
(7th Cir. 2017).)
Where a complaint expressly alleges “fraud,” Rule 9(b) requires pleading with
“particularity.” This pleading standard requires at a minimum that a plaintiff allege
each of the “who, what, when, where, and how” of the alleged fraud. Vanzant v. Hill's
Pet Nutrition, Inc., 934 F.3d 730, 738 (7th Cir. 2019).
ARGUMENT
This case has multiple threshold defects that require dismissal. Plaintiff lacks
standing, his inexplicably late claim is barred by laches, and the relief he requests is
barred by the Eleventh Amendment and Substantive Due Process Clause.
Turning to the individual causes of action, he has stated no constitutional
claim as a matter of law. The Elections and Electors Clauses do not create federal
claims for alleged vote-counting disputes and violations of state election law of the
kind alleged here do not amount to federal equal protection or due process claims.
Even if Plaintiff had a claim, his purported evidence is shockingly unreliable, is
unlikely to even meet basic evidentiary standards, and cannot possibly support
overturning the results of the election. Finally, the relief he seeks is nothing short of
mass disenfranchisement.

1022

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 26 Document 54

A.

This case has fatal jurisdictional and procedural defects that
require dismissal.
1.

Plaintiff lacks Article III standing to assert any of his
claims.

Plaintiff is a registered voter and nominee to be a presidential elector for the
Republican Party. (Dkt. 9 ¶ 24.) Neither his status as a registered voter nor an elector
nominee establishes standing.
Plaintiff states that he is registered to vote in Wisconsin but does not even
allege that he actually voted in the November 2020 election. (Dkt. 9 ¶ 24.) He cannot
claim any injury by being simply registered. Even if he had voted, it is well
established a voter cannot allege the particularized harm necessary to bring a claim
based on alleged defects in other votes. This is so because the harm Plaintiff alleges
to have suffered would, if proven, be experienced equally by all voters in the state.
Martel v. Condos, No. 20-cv-131, 2020 WL 5755289, at *4 (D. Vt. 2020) (“If every voter
suffers the same incremental dilution of the franchise caused by some third-party’s
fraudulent vote, then these voters have experienced a generalized injury.”); see also
Moore v. Circosta, No. 20CV911, 2020 WL 6063332 at *14 (M.D.N.C. 2020); Donald
J. Trump for Pres., Inc. v. Cegavske, No. 20-cv-1445 JCM, 2020 WL 5626974,
at *4–5 (D. Nev. 2020); Paher v. Cegavske, 457 F. Supp. 3d 919, 926 (D. Nev. 2020).
Plaintiff’s status as a presidential elector likewise does not grant him standing.
He cites Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020), for the proposition, never
recognized in the Seventh Circuit, that elector status grants one standing to challenge
election results. But the dissent in Carson persuasively explained why it does not:

1023

4
Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 26 Document 54

Electors are not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office of elector
depends entirely on the outcome of the state popular vote for president
. . . . They are not presented to and chosen by the voting public for their
office, but instead automatically assume that office based on the public's
selection of entirely different individuals.
Id. at 1063 (Kelly, J., dissenting). Electors therefore do not have a “particularized
stake” in the election outcome beyond that of ordinary voters. Id. The Third Circuit
rejected a similar standing argument, holding instead that a congressional candidate
lacked Article III standing to assert nearly-identical claims to the ones Plaintiff
pursues here, showing that Carson is an outlier. See Bognet v. Sec’y Commonwealth
of Pennsylvania, No. 20-3214, 2020 WL 6686120, at *8 n.6 (3d. Cir. 2020). And just
today, the Eastern District of Michigan rejected an identical claim. King v. Whitmer,
No. 20-13134 (E.D. MI. December 7, 2020) (explaining that the court is unconvinced
regarding elector-nominee standing). Plaintiff’s elector status grants him no special
standing privileges. Even if the Plaintiff had standing for some claims, he particularly
lacks standing for any claim that violations of state elections law amount to a federal
claim under the Electors Clause. For Electors Clause claims, even candidate plaintiffs
fare no better in the standing inquiry than other citizens. See, e.g., Bognet,
2020 WL 6686120 at *8. This is because every candidate, just like every other citizen,
is in precisely the same position. See id. If an Electors Clause claim belongs to anyone,
it belongs “only to the [legislature].” Id. at *7. Here, for claimants like Plaintiff who
are not the legislature, and bear not even a “conceivable relationship to state
lawmaking processes, they lack standing to sue over the alleged usurpation of the
[legislature’s] rights under the . . . Electors Clause[ ].” Id. at *7.

1024

5
Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 26 Document 54

2.

Laches bars Plaintiff’s unreasonably late allegations.

Plaintiff inexplicitly waited until after the Wisconsin election, after the
canvassing, after the recount, after the audit, after results were certified, and indeed
until the eve of the electoral college vote, to bring his claim of state law violations and
widespread fraud that allegedly originated years ago in the era of Hugo Chavez’s
Venezuelan presidency. If the doctrine of laches means anything, it is that Plaintiff
here cannot overturn the results of a completed and certified election through
preliminary relief in this late-filed case.
“Laches arises when an unwarranted delay in bringing a suit or otherwise
pressing a claim produces prejudice.” Jones v. Markiewicz-Qualkinbush, 842 F.3d
1053, 1060 (7th Cir. 2016) (citation omitted). “The obligation to seek injunctive relief
in a timely manner in the election context is hardly a new concept.” Id. at 1060–61.
“In the context of elections, . . . any claim against a state electoral procedure must be
expressed expeditiously.” Fulani v. Hogsett, 917 F.2d 1028, 1031 (7th Cir. 1990).
Plaintiff’s tardy claims meets every element laches.
Plaintiff waited to challenge widely-known procedures until after millions of
voters cast their ballots in reliance on those procedures. That delay is unreasonable
under both the law and common sense and this case should be dismissed See Wood v.
Raffensperger, No. 20-14418, 2020 WL 7094866, at *6 (11th Cir. Dec. 5, 2020)
(Dismissing a case as moot where Plaintiff challenged vote certification after the
election and after results were certified.); (King, No. 20-13134 Dkt. 62:19 (“Plaintiffs
could have lodged their constitutional challenges much sooner than they did, and
certainly not three weeks after Election Day and one week after certification of almost

1025

6
Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 26 Document 54

three million votes. The Court concludes that Plaintiffs’ delay results in their claims
being barred by laches”).)
Just for example, on the issue of “indefinitely confined” voters, the legal issues
were litigated in state court almost eight months ago. See Pet. for Original Action,
date March 27, 2020, Supreme Court of Wisconsin, No. 2020AP000557-OA. Plaintiff
obviously could have pressed this indefinite confinement issue in the many months
between when it emerged and the November general election, thus allowing
Wisconsin election officials to adjust accordingly.
The prejudice caused by Plaintiff’s delay is profound. Plaintiff sat on his claims
allowing millions of Wisconsinites to vote in reliance on those procedures, only to
attack those decisions after they became irreversible. See Fulani, 917 F.2d at 1031
(“As time passes, the state’s interest in proceeding with the election increases in
importance as . . . irrevocable decisions are made.”). This is precisely the type of
prejudice the laches doctrine exists to prevent.
Nothing less than the right of every Wisconsinite to have their vote for
President counted is at stake if Plaintiff’s requests are granted. Indeed, as the U.S.
Supreme Court explains, “[c]onfidence in the integrity of our electoral processes is
essential to the functioning of our participatory democracy.” Purcell v. Gonzalez,
549 U.S. 1, 4 (2006). One could not shake the public’s confidence in our electoral
process more vigorously than by allowing unforeseeable post-election legal challenges
to invalidate hundreds of thousands of votes that were cast in reliance on election
officials’ guidance.

1026

7
Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 26 Document 54

3.

The Eleventh Amendment precludes Plaintiff’s claims
seeking this Court to order state officials to comply with
state election law.

Plaintiff fundamentally asks this court for a declaration and injunction against
state officials for alleged violations of state election law that he describes as
“Violations of Wisconsin Election Code.” (Dkt. 9:11.) Such a claim is barred by the
Eleventh Amendment.
The Eleventh Amendment bars “relief against state officials on the basis of
state law, whether prospective or retroactive.” Pennhurst State School & Hospital v.
Halderman, 465 U.S. 89, 106 (1984). The Supreme Court has explained that “it is
difficult to think of a greater intrusion on state sovereignty than when a federal court
instructs state officials on how to conform their conduct to state law. Such a result
conflicts directly with the principles of federalism that underlie the Eleventh
Amendment.” Id.; see also Rose v. Bd. of Election Comm’rs for City of Chi.,
815 F.3d 372, 375 n.2 (7th Cir. 2016) (“[A]ny argument to the effect that the state did
not follow its own laws is barred by the Eleventh Amendment.”).
Plaintiff’s federal constitutional claims turn almost entirely on his allegations
about state election officials improperly administering state election law. His
Elections and Electors Clause claim turns on “three separate instances where
Defendants violated the Wisconsin Election Code,” (Dkt. 9 ¶¶ 104–06), just as his
Equal Protection Clause claim rests on how “Defendants failed to comply with the
requirements of the Wisconsin Election Code” (Dkt. 9 ¶ 116) and his due process claim
relies on “Defendants[’] violation of the Wisconsin Election Code” (Dkt. 9 ¶ 129). Just
as in the parallel case from Michigan decided today, “the Eleventh Amendment bars

1027

8
Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 26 Document 54

Plaintiffs’ claims against Defendants”. (King, No. 20-13134, Dkt. 62:13.) Plaintiff
fundamentally asks this Court to order state officials to follow state election law,
relief that the Eleventh Amendment and Pennhurst squarely bars.
B.

Plaintiff fails to state any valid federal claim.
1.

Plaintiff fails to plead a claim under either the Election or
Electors Clauses.

In Count I of the Amended Complaint, Plaintiff alleges violations of the federal
Constitution’s Elections and Electors Clauses which vest authority in “the
Legislature” of each state to regulate “[t]he Times, Places, and Manner of holding
Elections for Senators and Representatives”, U.S. Const. art. I, § 4, cl. 1., and to direct
the selection of presidential electors, U.S. Const. art. II, § 1, cl. 2, respectively. The
cause of action rests entirely on allegations that three aspects of administrative
guidance issued by the Commission were contrary to state election law. (Dkt. 9
¶¶ 104–106.) Those claims fail as a matter of law because his disagreement with how
state officials administered state elections law does not state a violation of the
Elections and Electors Clause.
It is black-letter law that “’[a] violation of state law does not state a claim under
§ 1983,’ and, more specifically, ‘a deliberate violation of state election laws by state
election officials does not transgress against the Constitution.’” Shipley v. Chi. Bd. of
Election Commissioners, 947 F.3d 1056, 1062 (7th Cir. 2020) (citation omitted); see
also Bognet, 2020 WL 6686120, *6 (“[F]ederal courts are not venues for plaintiffs to
assert a bare right ‘to have the Government act in accordance with law.’”) (citation
omitted); Martinez v. Colon, 54 F.3d 980, 989 (1st Cir. 1995) (“[T]he Constitution is

1028

9
Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 26 Document 54

not an empty ledger awaiting the entry of an aggrieved litigant’s recitation of alleged
state law violations—no matter how egregious those violations may appear within
the local legal framework.”).
This non-interference principle rests on a “caution against excessive
entanglement of federal courts in state election matters”:
The very nature of the federal union contemplates separate functions for
the states. If every state election irregularity were considered a federal
constitutional deprivation, federal courts would adjudicate every state
election dispute, and the elaborate state election contest procedures,
designed to assure speedy and orderly disposition of the multitudinous
questions that may arise in the electoral process, would be superseded
by a section 1983 gloss.

Bodine v. Elkhart Cty. Election Bd., 788 F.2d 1270, 1272 (7th Cir. 1986).
Plaintiff’s theory here violates this core federalism principle, as it rests solely
on three aspects of administrative guidance issued by the Commission. (Dkt. 9
¶¶ 104–106.) None of these alleged state law violations can support a federal
constitutional claim under cases like Shipley and Bodine. The general rule that “[a]
violation of state law does not state a claim under § 1983,” Shipley, 947 F.3d at 1062,
would no longer have any teeth, and plaintiffs could evade it simply by alleging an
Elections Clause violation. This would threaten to replace Wisconsin’s “elaborate
state election contest procedures” with federal court intervention in the
“multitudinous questions that may arise in the electoral process,” just as Bodine
warned against. 788 F.2d at 1272 (citation omitted); (see also King, No. 20-13134,
Dkt. 62:29–30 (holding in a nearly identical case that “Plaintiffs lack standing to sue
under the Elections and Electors Clause”).) Indeed, this collision between federal and

1029

10
Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 26 Document 54

state proceedings can be seen playing out here and now. This week, President Trump
is litigating his challenge to Wisconsin’s recount results through the state procedures
under Wis. Stat. § 9.01. Donald J. Trump v. Joseph R. Biden, No. 20CV7092 (Wis.
Cir. Ct. Milwaukee Cty.); Donald J. Trump v. Joseph R. Biden, No. 2020CV2514 (Wis.
Cir. Ct. Dane Cty.) (consolidated with Milwaukee County case No. 20CV007092.)
Simultaneously, Plaintiff here is challenging the count in this Court. It would be hard
to better illustrate the federalism concerns raised by opening the federal courthouse
doors to Plaintiff’s state election law grievances.
2.

Plaintiff fails to state a claim for equal protection and due
process because he asserts ordinary election irregularities
that should be handled under state law.

In counts II and III, Plaintiff alleges constitutional equal protection and due
process claims. But he states no constitutional claim; he merely makes state-law
claims that are fully addressable through state procedures.
The federal “Constitution is not an election fraud statute.” Bodine, 788 F.2d
at 1271. “It is not every election irregularity . . . which will give rise to a constitutional
claim.” Id. The federal constitution “is implicated only when there is ‘willful conduct
which undermines the organic processes by which candidates are elected.’” Id. at 1272
(emphasis

omitted)

(citation

omitted).

Therefore,

“garden

variety

election

irregularities that could have been adequately dealt with through the procedures set
forth in [state] law” do not support constitutional due process claims. Id.; see also
Bennett v. Yoshina, 140 F.3d 1218, 1226 (9th Cir. 1998) (“[G]arden variety election

1030

11
Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 26 Document 54

irregularities do not violate the Due Process Clause, even if they control the outcome
of the vote or election.”).
Plaintiff relies on a vote-dilution theory. (Dkt. 9 ¶¶ 114, 125–26.) This theory
fails in its premise because he does not allege that he voted. (Dkt. 9 ¶ 24.) With no
vote, there is nothing to dilute, and his voter-dilution claim fails in its premise.
Additionally, Plaintiffs’ novel version of vote dilution could not support a
federal claim, even if he had voted. Recognized vote dilution claims involve state laws
that structurally disadvantage certain groups in the voting process. For instance,
Reynolds v. Sims, 377 U.S. 533 (1964), held that state legislative districts must be
apportioned

by

population

to

avoid

diluting

the

votes

of

residents

in

disproportionately populous districts. Other vote dilution claims similarly target
legislative apportionment schemes that disadvantage minorities in violation of either
equal protection or the Voting Rights Act of 1965 (“VRA”). See, e.g., Thornburg v.
Gingles, 478 U.S. 30, 34 (1986) (multimember districts in North Carolina violated
VRA by diluting black vote); Miller v. Johnson, 515 U.S. 900, 911 (1995) (“[A] vote
dilution claim alleges that the State has enacted a particular voting scheme as a
purposeful device ‘[t]o minimize or cancel out the voting potential of racial or ethnic
minorities.’” (citation omitted)).)
Plaintiff’s novel vote dilution theory, in contrast, rests on alleged vote counting
violations and does not fit within this recognized malapportionment framework, as
the Third Circuit held just days ago in Bognet, 2020 WL 6686210, at *11. There,
individual voters alleged that votes arriving or cast after election day were unlawfully

1031

12
Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 26 Document 54

counted, thereby diluting the plaintiffs’ votes in an unconstitutional manner.
Id. at *9. The Third Circuit rejected this theory, explaining that “[c]ontrary to [this]
conceptualization, vote dilution under the Equal Protection Clause is concerned with
votes being weighed differently.” Id. Recognizing this unprecedented kind of dilution
claim would upset the delicate balance between state and federal authority over
elections:
[I]f dilution of lawfully cast ballots by the “unlawful” counting of
invalidly cast ballots “were a true equal-protection problem, then it
would transform every violation of state election law (and, actually,
every violation of every law) into a potential federal equal-protection
claim requiring scrutiny of the government’s ‘interest’ in failing to do
more to stop the illegal activity.”
Bognet, 2020 WL 6686210, at *11 (citation omitted).
Plaintiffs’ novel vote dilution claim would implicate practically any state
election, because “[i]n just about every election, votes are counted, or discounted,
when the state election code says they should not be. But the Constitution ‘d[oes] not
authorize federal courts to be state election monitors.’” Donald J. Trump for
President, Inc. v. Boockvar, No. 20-cv-966, 2020 WL 5997680, at *48 (Oct. 10, 2020)
(second alteration in original) (citing Gamza v. Aguirre, 619 F.2d 449, 454 (5th Cir.
1980)). Yet state election monitors are exactly what federal courts would become, if
unlawfully cast votes alone sufficed to state a constitutional claim.1

Many other federal courts have rejected these kinds of vote dilution claims.
See also, e.g., Republican Party of Pennsylvania v. Cortes, 218 F. Supp. 3d 396, 407
(E.D. Pa. 2016) (“[V]ote dilution cases do not extend to “speculation that fraudulent
voters may be casting ballots elsewhere.”); Donald J. Trump for President, Inc. v.
Boockvar, No. 2:20-CV-966, 2020 WL 5997680, at *59 (W.D. Pa. Oct. 10, 2020)
1

1032

13
Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 26 Document 54

Plaintiff does not cite a single vote dilution case resting on allegedly illegal
votes. Instead, Plaintiff relies primarily on Reynolds—again, a case about dilution
caused by malapportionment. 377 U.S. at 555 (Dkt. 9 ¶ 114.). But Reynolds relied on
cases involving whether Congress had the power to criminalize certain state election
misconduct under federal law. See Ex parte Siebold, 100 U.S. 371 (1879), and United
States v. Saylor, 322 U.S. 385 (1944). As the Third Circuit recognized, Reynolds’s
citation to those two criminal cases does not mean that individual voters may assert
civil vote dilution claims based solely on illegal votes. See Bognet, 2020 WL 6686120,
at *14. Plaintiff also cites Donald J. Trump for President, Inc. v. Bullock,
No. CV 20-66-H-DLC, 2020 WL 5810556 (Sept. 2020), but that case merely
“assum[ed] such a claim exists” only to dismiss it based on a lack of evidence.
Rejecting Plaintiff’s “illegal vote” dilution theory would not leave the integrity
of Wisconsin’s elections without safeguards. A wide range of regulations govern voter
registration and absentee voting to ensure that only eligible residents receive and
cast absentee ballots. See generally Wis. Stat. ch. 6. If those regulations are purposely
evaded, state election fraud prosecutions may ensue. See generally Wis. Stat. § 12.13.
And recounts are the ultimate backstop, where votes may be identified, challenged,
and, if appropriate, invalidated. See generally Wis. Stat. § 9.01. The crucial point is

(rejecting vote dilution claim resting on potential fraud that did not involve
“malapportionment, disenfranchisement, or intentional discrimination”); Minnesota
Voters All. v. Ritchie, 720 F.3d 1029, 1033 (8th Cir. 2013) (rejecting vote dilution claim
resting on “illegally cast votes” by election day registrants, absent allegations of
“discriminatory or other intentional, unlawful misconduct” by election officials or
“willful and illegal conduct [by] election officials [that] results in fraudulently
obtained or fundamentally unfair voting results”).

1033

14
Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 26 Document 54

that our system of federalism entrusts electoral integrity to these state-level
protections, not to federal constitutional claims by individual voters. Plaintiff’s vote
dilution claim rests on a fatally flawed legal theory and fails as a matter of law.
3.

Plaintiff’s purported evidence is unpersuasive, unlikely to
meet basic evidentiary standards, and does not support
discarding the votes of millions of Wisconsin residents.

Count IV of the Amended Complaint alleges massive election fraud through an
“insidious, and egregious ploy” to falsely report the outcome of the 2020 Wisconsin
general election. (Dkt. 9 ¶¶ 2, 132–135.) The general theory is that foreign oligarchs
and dictators created a voting system called “Smartmatic” to help Hugo Chavez in
Venezuelan elections. (Dkt. 9 ¶¶ 7–8; 9-1 ¶¶ 13–20.) There is no allegation that
Smartmatic is used in Wisconsin. Instead, an anonymous declarant says that
“software of Dominion and other election tabulating companies relies upon software
that is a descendant of . . . Smartmatic” and Plaintiffs allege that “Dominion Systems
derive from the software designed by Smartmatic Corporation.” (Dkt. 9 ¶ 7;
9-1 ¶ 21.)
Plaintiff then makes the incredible, and implausible, leap that Dominion
machines in Wisconsin were hacked in 2020. He asks this Court to overturn the
election results because anonymous declarants say that a different system, used in a
different country, for a different election, was manipulated. This would not even pass
Rule 9(b) pleadings standards, let alone support the unprecedented and
extraordinary act of having a federal court reverse the outcome of a certified state
election.

1034

15
Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 26 Document 54

Things get even worse looking past the pleadings to the supporting documents.
Even a facial review shows a complete lack of reliable evidence. Much of Plaintiff’s
purported evidence comes from undisclosed witnesses or is completely irrelevant to
Wisconsin. What little even mentions Wisconsin is based on plainly unreliable data
and reasoning. His purported evidence does not meet admissibility standards and is
not in the ballpark of supporting his extraordinary request.
Of Plaintiff’s 18 proffers of evidence, five are from anonymous declarants
where the names of the witness or expert are redacted. (Dkt. 9-1; 9-4; 9-12; 9-13;
9-19.) This makes it impossible to evaluate the legitimacy or potential bias of the
evidence and those declarations should be disregarded. Even hypothetically looking
past the secret sources, the affidavits are astoundingly thin. Exhibit 1 propounds at
length about the integrity of past elections in Venezuela but offers no information
about the 2020 Wisconsin election. Exhibit 12 is from a self-proclaimed “white-hat
hacker” who testifies to the unremarkable fact that Dominion’s public website has
internet interrelationships in other countries, but makes absolutely no connection to
Wisconsin voting machines or data security. (Dkt. 9-12:1.) Exhibit 13 is from an
anonymous source who purports to be an “amateur network tracer and typographer”
whose third-hand amateur opinions about corporate relationships amount to a
conspiracy theory. (Dkt. 9-13:1.)
The documents include two anonymous expert reports. (Dkt. 9-4; 9-19.) Exhibit
4 offers a terse statistical analysis culminating in a graphic where the author
identifies “large red dots” on a vote ratio chart where Biden overperformed

1035

16
Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 26 Document 54

predictions in counties using Dominion voting machines. (Dkt. 9-4:2–3.) It is difficult
to discern what, if anything, the scatter plot shows, and the report notably leaves
unexplained that nearly all of the graph’s “large dot” indicators, red and blue, show
overperformance, which is more consistent with the conclusion that more voters
turned out and Biden overperformed everywhere, which is why he won the election.
That one candidate received more than expected votes at a particular voting machine
is entirely unremarkable in an election with high turnout where that candidate won.
And anonymous expert report Exhibit 19 leads its analysis with the unhelpful
statement that “it is possible to obtain rough estimates on how vote fraud could
possibly have effected [sic] the election.” (Dkt. 9-19:2.) As if that were not speculative
enough, the report indicates that its Wisconsin “data was obtained from the twitter
account of @shylockh, who derived his sources from the New York Times and in some
cases from the unofficial precinct reports.” (Dkt. 9-19:8–9.) Such anonymous, bare
speculation on third- or fourth-hand information is unpersuasive.
Of the documents that are at least authored, many have nothing to do with the
Wisconsin election. (Dkt. 9-6; 9-7; 9-8; 9-10; 9-11; 9-14; 9-15; 9-16; 9-18.) For example,
Exhibit 6 is a statement from a Colorado resident who reports going to an Antifa
meeting and overhearing a conversation where he believes he heard a person named
“Eric” state that he is making sure Trump does not win the election. (Dkt. 9-6:2.)
Through a series of Google searches and listeners of his podcast, he opines that a
former employee of Dominion named Eric has altered the election. (Dkt. 9-6:2–6.)

1036

17
Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 26 Document 54

This Googled evidence, based on hearsay at an alleged meeting in Colorado, is not
reliable evidence of election fraud in Wisconsin.
Exhibit 7 is from a person who observed polls in Atlanta, Georgia, in June and
August of 2020 and does not even mention Wisconsin. Exhibit 8 opines on the political
status of Venezuela. Exhibit 14 is from a person who reports that he has reviewed
materials about Dominion voting systems, all from public websites, but offers no
information about Wisconsin election processes. And Exhibits 10, 11, 15, 16 and 18
are generalized articles or letters about election systems generally that do nothing to
prove Plaintiff’s claims that vote tabulating in Wisconsin is inaccurate.
The very few non-anonymous filings that even discuss the Wisconsin election
are facially unpersuasive and likely do not even meet evidentiary reliability
standards. Expert testimony is inadmissible unless it: will help the trier of fact to
understand the evidence; is based on sufficient facts or data; is the product of reliable
principles and methods; and the expert has reliably applied the principles and
methods to the facts of the case. Fed. R. Evid. 702. In assessing the admissibility of
expert testimony, courts must ensure that the testimony is both reliable and relevant.
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 597 (1993). District
courts “must evaluate: (1) the proffered expert’s qualifications; (2) the reliability of
the expert’s methodology; and (3) the relevance of the expert’s testimony.”
Gopalratnam v. Hewlett-Packard Co., 877 F.3d 771, 779 (7th Cir. 2017). The party
offering the expert testimony has the burden of establishing that the proffered
testimony satisfies Fed. R. Evid. 702. Id. at 782.

1037

18
Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 26 Document 54

Plaintiff offers four expert opinions in support of his request to overturn the
Presidential election. (Dkt. 9-2; 9-3; 9-9; 9-17.) None meet the standard in Rule 702.
One is a re-filing of a report that was previously filed in a state court case, from
Matthew Braynard. (Dkt. 9-3.) Braynard does not appear to be qualified to offer the
opinions in his report. He offers statistical conclusions based on a purported sampling
of voters in certain categories, which he opines are representative of various larger
categories of voters. Braynard has no formal education in statistics or statistical
surveys. Instead, his report indicates he has a degree in business administration.
(Dkt. 9-3:3.) It is dubious whether Braynard’s opinions are based on “sufficient facts
and data” or whether his methods are reliable. Braynard says he used voter
information provided by “L2 Political” (Dkt. 9-3:3), but it is unknown whether this
data reliably reflects information on Wisconsin voters. He also purports to rely on a
database of address changes, but it is unclear whether this database accurately
reflects electors’ correct addresses for voting purposes. Further, his conclusions are
based on the results of telephone calls made by call centers and “social media
researchers” that are of unknown quality. (Dkt. 9-3:3.) These telephone surveys could
easily include bad data and unreliable methods, given that the report does not
disclose exactly how these surveys were conducted. Plaintiff has not shown that
phone surveys like these can reliably obtain information about voters or that his
limited sample of voters who responded is representative of the whole.
Next is the report of William Briggs, which exclusively used the flawed data
from Braynard. (Dkt. 9-2:1.) Even apart from this flawed underlying data, Briggs’s

1038

19
Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 26 Document 54

analyses are woeful. He concludes that thousands of people received absentee ballots
who did not request one. (Dkt. 9-2:1.) His report fails to account for voters who have
requested that absentee ballots be sent automatically for every election, which would
fully explain his concern. Even setting aside whether that is even an indicia of fraud,
one would assume that to reach this conclusion he identified people who received a
ballot without requesting one. Not so. His report explains that he used phone survey
results that asked, for example, whether a person requested an absentee ballot.
(Dkt. 9-2:5.) His report indicates that only 433 people, out of the millions of Wisconsin
voters, completed the survey. (Dkt. 9-2:5.) He assumes that this tiny sample was
representative of the whole state and scaled the number up to predict the total
number of people who requested ballots, and compared that to the number of people
receiving ballots. (Dkt. 9-2:1.) What he did not do is the obvious analysis of asking
anyone whether they received a ballot without asking for one. As he concedes in his
report: “Survey respondents were not asked if they received an unrequested ballot . .
. This is clearly a lively [sic] possibility . . . no estimates or likelihood can be calculated
for this potential error due to absence of data.” (Dkt. 9-2:2.) This type of methodology
failure pervades his report.
The final two are the Keshel and Ramshland Jr. opinions, which are likewise
unpersuasive. (Dkt. 9:9, 17.) Keshel is a data analysist with no apparent elections
training but who reports that he has “political involvement requiring knowledge of
election trends and voting behavior.” (Dkt. 9-9:1.) He used uncertified information
from an “unofficial tracker” to determine that the 2020 elections went “against the

1039

20
Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 26 Document 54

trends of the previous election” to elect a Democratic candidate. (Dkt. 9-9:1, 4.) But
this is no more than acknowledging that a Republican won in 2016 and a Democrat
won in 2020. Keshel refers to this as “suspicious vote totals” but it does not show any
more than a different outcome in 2020 than in the past.
Ramshland Jr. does not disclose his data source other than “[m]y colleague and
I . . . have studied the information that was publicly available.” (Dkt. 9-17:4.) From
this, he identifies “red flags” including a very high turnout in several Wisconsin
counties. (Dkt. 9-17:9.) He concludes that fraud occurred because many votes for
Biden were counted late in the tabulating process. (Dkt. 9-17:4–5.) But, as now been
repeatedly publicly explained, this occurred because absentee ballots, which favored
Democratic candidates, were counted together late in the election day. The report also
“normalized” the turnout to a lower rate and found that “the excess votes are at least
384,085 over the maximum that could be expected. (Dkt. 9-17:9.) But this
“normalization” is nothing more than lowering the vote count. He concludes on this
analysis that there were up to 384,085 “illegal votes that must be disregarded.”
(Dkt. 9-17:12.) The idea that Wisconsin should discard votes because more people
voted than normal is absurd.
This unpersuasive and unreliable evidence stands in contrast to an actual
hand-count audit of the machines used in the election, which showed no fraud. Like
in the parallel Michigan case, “With nothing but speculation and conjecture that votes
for President Trump were destroyed, discarded or switched to votes for Vice President
Biden,

1040

Plaintiffs’

equal

protection

claim

fails.”

(King,

No.

20-13134,

21
Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 26 Document 54

Dkt. 62:29–30.) This Court should not conclude, on Plaintiff’s proffer of anonymous
declarations, hearsay, and facially faulty analyses, that Wisconsin should disregard
the outcome of the election for President.2
C.

Plaintiff’s
requested
remedy
disenfranchise Wisconsin voters.

would

unconstitutionally

Regardless of all of the other reasons Plaintiff’s claims fail, the remedy he
seeks—the exclusion of hundreds of thousands of votes in Wisconsin—would violate
these voter’s federal due process rights by retroactively overriding election
procedures that those voters relied on and nullifying votes cast for Vice President
Biden based on a speculative and far-fetched conspiracy theory of voter fraud.
Once a state legislature has directed that the state’s electors are to be
appointed by popular election, the people’s “right to vote as the legislature has
prescribed is fundamental.” Bush v. Gore, 531 U.S. 98, 104 (2000) (per curiam). That
fundamental right to vote includes “the right of qualified voters within a state to cast
their ballots and have them counted.” United States v. Classic, 313 U.S. 299, 315
(1941).
Due process is violated when voters rely on an established election procedure
and significant disenfranchisement results from a change in the procedures postelection. Bennett, 140 F.3d at 1227; Northeast Ohio Coal. for the Homeless v. Husted,

Plaintiff’s request for the Court to “seize and impound” all equipment
statewide, is also misdirected. (Dkt. 9 ¶ 48.) The Commission does not own or have
custody over such election equipment. See Wis. Stat. 5.91; Wis. Admin. Code ch. EL
7; https://elections.wi.gov/elections-voting/security (explaining that municipalities
purchase the equipment.)
2

1041

22
Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 26 Document 54

837 F.3d 612 (6th Cir. 2016) (finding no reason to invalidate a ballot when there was
no evidence of voter fraud.); Griffin v. Burns, 570 F.2d 1065, 1079 (1st Cir. 1978)
(retroactive invalidation of absentee ballots violated due process). Those conditions
would be squarely met here by Plaintiff’s requested relief.
Wisconsin voters who reasonably relied on the established voting procedures
would be disenfranchised by the thousands, raising serious concerns of a due process
violation. To throw out the votes of 318,012 Wisconsin voters based on an implausible
conspiracy regarding voting machine would violate the constitutional rights of these
voters.
CONCLUSION
Defendants Wisconsin Elections Commission and its members request that
this case be dismissed.
Dated this 7th day of December 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796

1042

23
Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 26 Document 54

COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1043

24
Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 26 Document 54

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
v.

Plaintiff,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
BRIEF OF GOVERNOR TONY EVERS
IN OPPOSITION TO PLAINTIFF’S AMENDED MOTION
FOR TEMPORARY RESTRAINING ORDER AND PRELIMINARY INJUNCTION

Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Post Office Box 1784
Madison, WI 53701-1784
Telephone: 608-256-0226
jmandell@staffordlaw.com
rsnyder@staffordlaw.com
rmanthe@staffordlaw.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org

1044

Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers
December 7, 2020

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 32 Document 55

INTRODUCTION
Plaintiff’s motion seeks relief that is shockingly sweeping in scope. Wisconsin’s Supreme
Court recently called a similar request “the most dramatic invocation of judicial power [they] have
ever seen.” Wis. Voters Alliance v. Wis. Elections Comm’n, No. 2020AP1930-OA (Wis. Dec. 4,
2020) (Hagedorn, J., concurring on behalf of majority of Justices). Indeed, such a request would
be unimaginable, except that it has already been proposed—and rejected—elsewhere.
In November’s election, a record turnout of nearly 3.3 million Wisconsinites voted. Joe
Biden and Kamala Harris won by 20,585 votes. President Trump sought a partial recount,
confirming the result, which was then declared in the state canvass. As required by law, Governor
Evers issued a certificate identifying Wisconsin’s 10 participants in the Electoral College, who
will soon convene and cast their votes in accord with the will of Wisconsin’s voters.
Plaintiff’s request in this Court is less a prayer for relief than a desperate plea for historical
negation. His motion asks this Court to cast aside what has occurred, notwithstanding that the
election results were checked and re-checked as required by Wisconsin law, that President Trump
could—and did—request a recount, and that 5 percent of Wisconsin’s voting machines were
audited after the election. There is no basis, in fact or in law, for this Court to grant Plaintiff’s
requests, including, but not limited to:
overturning and decertifying Wisconsin’s election results, thereby disenfranchising
nearly 3.3 million Wisconsin voters (Amend. Cmplt. ¶¶138, 142.1);
requiring a statewide manual recount in the presidential election (Id. ¶142.8);
impounding all election equipment, software, ballots, and other election materials
maintained by non-party election officials in counties statewide (Id. ¶142.4); and
declaring that President Trump won Wisconsin’s Electoral College votes (Id. ¶142.3).
As the Wisconsin Supreme Court explained, “if there is a sufficient basis to invalidate an
election, it must be established with evidence and arguments commensurate with the scale of the

1045

1
Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 32 Document 55

claims and the relief sought.” Wis. Voters Alliance, Order at *3 (Hagedorn, J., concurring). Here,
as in that case, the record offered by the Plaintiff has “come nowhere close.” Id.1
The Middle District of Pennsylvania, when confronted with analogous claims and requests,
based on similarly scant evidence, also rebuked the plaintiffs:
Plaintiffs ask this Court to disenfranchise almost seven million voters.… One might expect
that when seeking such a startling outcome, a plaintiff would come formidably armed with
compelling legal arguments and factual proof of rampant corruption, such that this Court
would have no option but to regrettably grant the proposed injunctive relief despite the
impact it would have on such a large group of citizens.
That has not happened. Instead, this Court has been presented with strained legal arguments
without merit and speculative accusations…. In the United States of America, this cannot
justify the disenfranchisement of a single voter.

Donald J. Trump for President, Inc. v. Boockvar, No. 4:20-cv-02078-MWB, 2020 WL 6821992,
at *1 (M.D. Pa. Nov. 21, 2020), aff’d, No. 20-3771, 2020 WL 7012522, at *1 (3d Cir. Nov. 27,
2020) (“Free, fair elections are the lifeblood of our democracy. Charges of unfairness are serious.
But calling an election unfair does not make it so. Charges require specific allegations and proof.
We have neither here.”).2 See also Wood v. Raffensperger, No. 1:2020-cv-04651-SDG, 2020 WL
6817513, at *8 (N.D. Ga. Nov. 20, 2020), aff’d, No. 20-14418, 2020 WL 7094866 (11th Cir. Dec.
5, 2020) (denying motion for preliminary relief that “would disenfranchise a substantial portion of
the electorate and erode public confidence in the electoral process”).
Sifting through Plaintiff’s Amended Complaint and its exhibits (which, rather than
marshaling as part of his motion, Plaintiff instead purports to have “incorporate[d] herein by
reference”), is itself a daunting task that complicates any response. Consider:
The narrative strays far beyond Wisconsin’s borders, travelling through Venezuela,
Germany, and Serbia. (See Amend. Cmplt. ¶¶7-8, 73-75, 80-81)
1

This was a similar case, requesting similar relief, and relying heavily on one of the experts, Matthew
Braynard, Plaintiff cites in this case.
2
Pursuant to Civil L. R. 7(j)(2), all unpublished cases, orders, and dispositions cited are filed in
conjunction with this brief.

1046

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 32 Document 55

The exhibits include declarations from individuals in Japan and Texas with no apparent
expertise or first-hand knowledge of anything pertaining to the Wisconsin election.
(See id. ¶¶61-62, 87-88 & Exhs. 9, 14)
Five of the purported affiants are, for reasons unknown and unexplained—but which
regardless could not provide any conceivable basis for finding relevance or
admissibility—anonymous. (See id. Exhs. 1, 4, 12, 13, 19)
Much of Plaintiff’s Amended Complaint consists of Q-Anon conspiracy theories that do not come
close to satisfying federal-court pleading standards.
Nonetheless, a charitable reading of the complaint could be read to assert four theories of
“widespread fraud” that, according to Plaintiff, call into question Wisconsin’s election results:
(1) the notion that voting machines manufactured by “Dominion Voting Systems” were
prone to manipulation and could have been manipulated in a manner that compromised
the integrity of the Wisconsin election;
(2) the ipse dixit assertions of two so-called experts, Matt Braynard and William Briggs,
that a “survey” of individuals supposedly associated with “unreturned absentee ballots”
in Wisconsin somehow calls into question the election results;
(3) the characterization of Wisconsin’s election results as a “statistical impossibility” that
simply cannot be believed; and
(4) the theory that, by administering an election in accord with Wisconsin election law, the
Wisconsin Elections Commission (“WEC”) somehow violated Plaintiff’s rights.
None of these theories is remotely plausible, let alone supported by evidence that would suggest
Plaintiff has any likelihood whatsoever of prevailing on his claims.
Most glaringly, Dominion voting machines—the subject of endless pages of allegations
and affidavits in Plaintiff’s submission—are not used in the relevant counties. The Complaint
alleges “egregious” conduct involving these machines in eight Wisconsin counties (Amend.
Cmplt. ¶3), but materials, sourced from the WEC website and included in Plaintiff’s own exhibits,
show that Dominion machines are used in only two of those counties. And those two counties,
Ozaukee and Washington, are both places where President Trump won. Plaintiff’s other theories
similarly wilt under the slightest scrutiny and cannot show a reasonable likelihood of success.

1047

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 32 Document 55

Moreover, Plaintiff cannot meet any other element of the test for granting preliminary
injunctive relief. He cannot demonstrate any cognizable injury, much less irreparable harm. (See
Def. Evers Br. in Supp. of Mot. to Dismiss at 5-8, 16-24) Nor can Plaintiff demonstrate that he has
no alternative remedy, while President Trump is pursuing claims through the recount procedures
prescribed as exclusive by the Wisconsin Legislature. And, even if Plaintiff could carry his
burdens, the balance of harms indelibly tilts away from Plaintiff, because the relief he seeks would
cause enormous prejudice to nearly 3.3 million Wisconsin voters by depriving them of their chosen
representation in the Electoral College, as well as doing “indelible damage to every future election”
and diminishing “public trust in our constitutional order.” Wis. Voters All., Order at *3 (Hagedorn,
J., concurring).
For all of these reasons, as detailed below, Plaintiff’s motion should be denied.
RELEVANT FACTS
In the face of a global pandemic, the WEC took extraordinary steps to ensure a safe and
secure election. Since March 1, 2020, WEC has sent approximately 150 direct communications to
the 1,850 municipal clerks and 72 county clerks who administer Wisconsin elections. 3 These
communications address how to conduct an election in the middle of a global pandemic. The WEC
met approximately 30 times between March 1 and the November 3rd election.4 The WEC’s
carefully crafted guidance assisted election officials and helped ensure the safety of voters. For
example, the WEC developed comprehensive guidelines, rooted in and consistent with Wisconsin
law, about municipal drop boxes as a safe, convenient way for voters to return absentee ballots.5

3

See https://elections.wi.gov/clerks/recent-communications (last visited Dec. 5, 2020).
See https://elections.wi.gov/calendar (last visited Dec. 5, 2020).
5
https://elections.wi.gov/sites/elections.wi.gov/files/2020-08/Drop%20Box%20Final.pdf (last visited
Dec. 5, 2020).
4

1048

4
Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 32 Document 55

Throughout this year, Wisconsin election officials prepared for record turnout and
unprecedented use of absentee ballots. In Wisconsin’s April presidential primary and nonpartisan
election, more than 70 percent of all votes cast (approximately 1,138,491 votes) were absentee.6
In the August partisan primary, approximately 75 percent of votes cast were absentee.7 By contrast,
over the prior decade, Wisconsin averaged less than six percent of votes cast by absentee ballot.8
In the November election, nearly 3.3 million Wisconsinites— approximately 72.66 percent of the
voting-age population—voted.9 Almost two million of those votes were cast by absentee ballot.10
All of this occurred consistent with Wisconsin law, which includes extensive safeguards.
Prior to the election, local election officials must test the voting machines no more than ten days
prior to the election to ensure the machines give an accurate vote count. Wis. Stat. § 5.84(1). That
test is open to the public, and indeed the municipal clerk must provide the public notice of the test
two days in advance. Id. After the clerk receives an accurate test result, the clerk then secures the
machine until the election. Wis. Stat. § 5.84(2).
An absentee ballot may be requested only by a registered voter, and that voter must sign
an affirmation on the ballot envelope in the presence of a witness, who also signs; both sign under
penalty of perjury. See Wis. Stat. §§ 6.86, 6.87(2). Once the polls close, Wisconsin begins its
canvassing process. Election inspectors conduct a local canvass at each polling place on election

6

https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/April%202020%20Absentee%20Voting
%20Report.pdf at 3-5 (last visited Dec. 5, 2020).
7
https://elections.wi.gov/sites/elections.wi.gov/files/2020-09/Election%20Statistics%20Report%2020
20%20Partisan%20Primary%20Election%202020-09-21.xlsx (last visited Dec. 5, 2020).
8
https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/April%202020%20Absentee%20Voting
%20Report.pdf at 6 (last visited December 5, 2020).
9
https://www.wispolitics.com/2020/wec-important-things-voters-should-know-after-the-election/ (last
visited Dec. 5, 2020).
10
Id.

1049

5
Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 32 Document 55

night. Wis. Stat. § 7.51. The few dozen municipalities that count absentee ballots at a central count
location proceed under the auspices of an absentee ballot board of canvassers. Wis. Stat. § 7.52.
Within a week of the election, every municipality has a three-member municipal board of
canvass that publicly meets to reconcile the poll lists and canvass the returns. Wis. Stat. § 7.53.
All municipal canvass results are reported to county clerks, each of whom convenes their county
board of canvass to publicly meet and examine the returns for all municipalities in their county.
Wis. Stat. § 7.60. Within two weeks of the election, county clerks report county canvass results to
the WEC. Wis. Stat. § 7.60(5). Once the WEC has received all of the county canvass results, the
chairperson reviews the results, publicly canvasses the returns, and prepares a statement certifying
the results and indicating the names of persons who have been elected to state and national offices.
Wis. Stat. § 7.70(3). Where a candidate in an election where more than 4,000 votes have been cast
trails the leading candidate by less than 1 percent of the total votes cast, the trailing candidate may
request a recount of the results. Wis. Stat. § 9.01(1). That recount occurs before the state canvass.
President Trump requested a recount of the canvasses in Dane and Milwaukee counties.11
As part of the recount, the county board of canvassers compares the poll lists to determine the total
number of voters, examines every absentee-ballot envelope and container, and then conducts a
reconciliation process to ensure the number of ballots and the number of voters match. Wis. Stat.
§ 9.01(1)(b)1.-4. Election officials then recount the votes, ensuring tabulation machines provide
accurate counts. Wis. Stat. § 9.01(1)(b)7.-8m., 10. Every step of the recount process is open to the
public. Wis. Stat. § 9.01(1)(b)11. Once the recount is complete, the county board of canvassers
certifies the results and provides them to the WEC chairperson, who must then complete the state
11

“Completed Wisconsin recount confirms Joe Biden’s win over Donald Trump,” Associated Press
(Nov. 30, 2020), available at https://madison.com/wsj/news/local/govt-and-politics/elections/completedwisconsin-recount-confirms-joe-bidens-win-over-donald-trump/article 6335f4cb-4308-5108-ae7188bf62ce90bf.html (last visited Dec. 5, 2020).

1050

6
Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 32 Document 55

canvass using the recounted results. Wis. Stat. § 9.01(5)(c). After the recounts in Dane and
Milwaukee Counties concluded, Joe Biden’s statewide lead increased by 87 votes.12
After every general election, Wisconsin election officials conduct an audit of selected
voting machines. Wis. Stat. § 7.08(6). Under federal law, no machine may demonstrate an error
rate greater than 1 in 500,000 ballots (0.0002 percent). 52 U.S.C. § 21081(a)(5); Fed. Elections
Comm’n, Voting System Standards § 3.2.1 (Apr. 2002).13 The WEC established the following
selection criteria for the audit following the November 2020 election:
1. Establish the audit sample as 5% of all reporting units statewide for a minimum of 184
total audits.
2. Ensure at least one piece of voting equipment is selected for audit in each of
Wisconsin’s 72 counties.
3. Ensure that a minimum of five reporting units are selected for every model of
equipment certified for use in Wisconsin.
WEC, Preliminary 2020 Post-Election Audit of Electronic Voting Equipment Report, at 2 (Nov.
17, 2020).14 The WEC audited 28 Dominion machines.15 The audit found no programming errors,
nor found any “identifiable bugs, errors, or failures of the tabulation voting equipment….”16 At
the WEC’s most recent meeting, Commissioner Dean Knudson, a former Republican legislator
and immediate-past chair of the WEC, said the audit showed “no evidence of systemic problems
[or] hacking [or] of switched votes.”17 He specifically noted that the WEC had “audited 15 percent
of the Dominion machines,” and found “no evidence of any Dominion machines changing votes

12

https://apnews.com/article/election-2020-joe-biden-donald-trump-madison-wisconsin-7aef88488
e4a801545a13cf4319591b0 (last visited Dec. 5, 2020).
13
Available at https://www.eac.gov/sites/default/files/eac assets/1/28/Voting System Standards
Volume I.pdf (last visited Dec. 5, 2020).
14
https://elections.wi.gov/sites/elections.wi.gov/files/202012/2020%20Audit%20Program%20Up
date%20for%2012 1 2020%20Meeting%20FINAL.pdf (last visited Dec. 5, 2020).
15
Id. at 4.
16
Id at 8.
17
Video available at https://wiseye.org/2020/12/01/wisconsin-elections-commission-december-2020meeting/ at 2:05:18.

1051

7
Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 32 Document 55

or doing any of the like.”18 Noting that Wisconsin’s “election equipment operated with great
accuracy,” he categorically asserted that he had “yet to see a credible claim of fraudulent activity
during this election.”19
Plaintiff waited until the day after Commissioner Knudson’s public comments to file this
lawsuit, alleging, without evidence, “massive fraud” in Wisconsin’s election. Plaintiff’s attorneys
have filed lawsuits substantially identical to this one in three other states. See King v. Whitmer,
No. 2:20-cv-13134 (E.D. Mich.); Pearson v. Kemp, No. 1:20-cv-04809-TCB (N.D. Ga.); Bowyer
v. Ducey, No. 20-cv-02321 (D. Az.). All of these suits allege widespread fraud as part of a grand
multi-national conspiracy to steal the election. None provides specific or even remotely reliable
evidence to support those extravagant claims. Each suit is a last-ditch attempt to overturn election
results and disenfranchise millions of voters without a shred of evidence. Just today the Eastern
District of Michigan rejected Plaintiff’s attorney’s lawsuit on six separate grounds, including that
the Eleventh Amendment barred relief, the claim was moot after Michigan certified the election
results, laches barred relief, abstention, lack of standing, and that the plaintiff had no likelihood of
success on the merits. King v. Whitmer, No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020). A Georgia
District Court dismissed an identical lawsuit in an oral decision, and the Arizona District Court on
its own order put over an evidentiary hearing after receiving the defendants’ motions to dismiss.
STANDARD OF REVIEW
The legal standard for a temporary restraining order is the same as a preliminary injunction.
Democratic Nat’l Comm. v. Bostelmann, 447 F. Supp. 3d 757, 765 (W.D. Wis. 2020). The plaintiff
“has the burden of making a threshold showing: (1) that he will suffer irreparable harm absent
preliminary injunctive relief during the pendency of his action; (2) inadequate remedies at law
18
19

Id. at 2:08:16.
Id. at 2:05:18, 2:06:52.

1052

8
Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 32 Document 55

exist; and (3) he has a reasonable likelihood of success on the merits.” Whitaker by Whitaker v.
Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1044 (7th Cir. 2017). If the court
finds the first three elements satisfied, it balances the relevant harms. Girl Scouts of Manitou
Council, Inc. v. Girl Scouts of U.S. of Am., Inc., 549 F.3d 1079, 1100 (7th Cir. 2008). The balancing
process “takes into consideration the consequences to the public interest of granting or denying
preliminary relief.” Id.
ARGUMENT
I. Defendants are overwhelmingly likely to prevail on the merits.
A.

There is no evidence of fraud in Wisconsin’s election results.

The Dominion machines in Wisconsin have shown no evidence of irregularities. And they
have been extensively audited. Dean Knudson, a Republican appointee to the WEC and former
Republican member of the Wisconsin Assembly, publicly said this month that “the Dominion
machines operated as they were designed to do within the specifications of our testing.” 20 He
specifically rejected the Dominion conspiracy theory: “We do not see problems with our voting
machines. … And we have no evidence of any Dominion machines changing votes or doing any
of the like.”21 Despite seemingly being aware of the theories underlying Plaintiff’s Dominion
allegations, Mr. Knudson definitively ruled out Dominion changing any votes. Nor is
Commissioner Knudson alone. Jim Steineke, the Republican Majority Leader for Wisconsin’s
State Assembly, called allegations of widespread voter fraud “nonsense” and dismissed the notion
of “widespread fraud large enough in numbers to overturn the result” of Wisconsin’s presidential

20

Video available at https://wiseye.org/2020/12/01/wisconsin-elections-commission-december-2020meeting/ at 2:05:18.
21
Id. at 2:08:16.

1053

9
Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 32 Document 55

election. 22 And U.S. Attorney General William Barr, “one of the president’s most ardent allies,”
said last week that U.S. Attorneys and FBI agents investigating claims of election irregularities
“have not seen fraud on a scale that could have effected a different outcome in the election.” 23
Audit results in Wisconsin contravene Plaintiff’s allegations. Wisconsin audited 60
Sequoia machines and 28 Dominion machines in the second half of November. Audits showed
that the machines tabulated ballots correctly, “with no bugs, errors, or failures occurring between
the individual cast vote record and the total tabulated vote record.”24 Recounts in Dane and
Milwaukee Counties further underscore the lack of evidence of any fraud. After a full recount
spanning more than a week, Dane County Clerk Scott McDonell, said, “what this recount showed
was that there was absolutely no evidence of voter fraud in this election even after looking at over
300,000 ballots, over 254,000 envelopes.”25 As he noted, “this incredible level of transparency
should provide reassurance to the public that the election was run properly and accurately and
there was no fraud.”26 Milwaukee County’s recount also found no evidence of fraud. 27
Christopher Krebs, President Trump’s chosen director for the Cybersecurity and
Infrastructure Security Agency, the agency tasked with ensuring secure elections, characterized

22

Rob Mentzer, “GOP Leader Pushes Back Against Election ‘Misinformation,’ Says No Evidence Of
Widespread Voter Fraud,” WPR (Nov. 16, 2020), available at https://www.wpr.org/gop-leader-pushes-ba
ck-against-election-misinformation-says-no-evidence-widespread-voter-fraud (last visited Dec. 5, 2020).
23
Michael Balsamo, “Disputing Trump, Barr says no widespread election fraud,” Associated Press
(Dec. 1, 2020), available at https://apnews.com/article/barr-no-widespread-election-fraud-b1f1488796c9
a98c4b1a9061a6c7f49d (last visited Dec. 5, 2020).
24
Audit available at https://elections.wi.gov/sites/elections.wi.gov/files/2020-12/2020%20Audit
%20Program%20Update%20for%2012 1 2020%20Meeting%20FINAL.pdf (last visited Dec. 6, 2020).
25
Patrick Marley, “Biden gains 87 votes in Trump's $3 million Wisconsin recount as Dane County
wraps up review. President plans lawsuit,” Milwaukee Journal Sentinel (Nov. 29, 2020), available at
https://www.jsonline.com/story/news/politics/2020/11/29/dane-county-recount-show-biden-won-wiscon
sin-trump-prepares-lawsuit/6455880002/ (last visited Dec. 4, 2020).
26
Id.
27
James Groh, “Milwaukee County election officials found "no instances of fraud" during recount,”
TMJ4 (Nov. 27, 2020), available at https://www.tmj4.com/news/election-2020/milwaukee-countyelection-officials-found-no-instances-of-fraud-during-recount (last visited Dec. 5, 2020).

1054

10
Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 32 Document 55

the 2020 election as “the most secure in U.S. history.”28 Specifically with respect to Wisconsin, he
noted that election administrators “worked overtime to ensure there was a paper trail that could be
audited or recounted by hand, independent of any allegedly hacked software or hardware.”29 He
explained that “Americans’ confidence in the security of the 2020 election is entirely justified”
because “[p]aper ballots and post-election checks ensured the accuracy of the count.30 Mr. Krebs’s
comments could not be more apt: Wisconsin’s recount of the ballots and audit of the machines
ensured accuracy and inspires confidence. There is no evidence of fraud in Wisconsin’s election;
to the contrary, all evidence is that the election was free and fair. Nothing Plaintiff has offered—a
mishmash of unattributed affidavits, hearsay, and extraordinary speculation—changes that.
B.

Plaintiff’s “witnesses” and “experts” should be ignored.

None of Plaintiff’s “experts” are experts at all. They lack qualifications, and they fail to
provide methodological information to show their opinions are reliable. Their opinions should be
ignored. Plaintiff’s fact witnesses fare no better. Their affidavits are unsupported, speculative and
unhelpful. Many are anonymous. They are inadmissible and unworthy of the Court’s attention.
1. Plaintiff’s affiants are entirely unqualified.
“Whether a witness is qualified as an expert can only be determined by comparing the area
in which the witness has superior knowledge, skill, experience, or education with the subject matter
of the witness’s testimony.” Gayton v. McCoy, 593 F.3d 610, 616 (7th Cir. 2010). Most of the
affidavits appended to the Amended Complaint purport to conduct expert analyses ranging from
statistical tests to forensic assessments of electronic voting systems. Yet almost none of Plaintiff’s
28

Christopher Krebs, “Trump fired me for saying this, but I’ll say it again: The election wasn’t rigged,”
Washington Post (Dec. 1, 2020), available at https://www.washingtonpost.com/opinions/christopher-krebstrump-election-wasnt-hacked/2020/12/01/88da94a0-340f-11eb-8d38-6aea1adb3839 story.html
(last
visited Dec. 6, 2020).
29
Id.
30
Id.

1055

11
Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 32 Document 55

affiants have any identifiable experience or education in the fields in which they opine, let alone
sufficient education and experience to qualify as an expert.
Exhibit 3 to the Amended Complaint is an affidavit from Matthew Braynard, who discusses
a survey that he maintains uncovered assorted irregularities in Wisconsin’s election results. But
Braynard’s only identified education is “a degree in business administration,” and he identifies no
other qualifications, experience, or publications in survey design, statistical methods in the social
sciences, or political science. (Exh. 3) Exhibit 2, an affidavit from William Briggs, is an analysis
based entirely on Braynard’s survey results, but Briggs also fails to identify any relevant
experience or qualifications in survey design. Neither Briggs nor Braynard is qualified to express
the opinions identified in their affidavits.
The qualifications of Plaintiff’s remaining affiants are equally infirm. Exhibits 4, 12, 13,
and 19 are “expert” analyses conducted by anonymous individuals whose credentials—or even
existence—cannot be tested or assessed. Even taken on their own terms, these affidavits do not
disclose any remotely acceptable qualifications. Exhibit 12 purports to be a forensic analysis of
various computer networks, but the anonymous author identifies no relevant qualifications or
education, aside from “extensive experience as a white hat hacker.” Exhibit 13 purports to be a
technical analysis of certain voting technologies, but the author states that his degree is in
physiology and that he is an “amateur network tracer.” He does not identify any specific education
or experience that would qualify him to analyze electronic voting systems. And Exhibit 19 is a
statistical analysis conducted by an electrical engineer with no discernible experience in statistics.
Exhibit 8, a statement by Ana Mercedes Diaz Cardozo, expresses opinions about the
security of electronic voting systems, but she is not a computer scientist or information security
expert, nor does she possess any other relevant qualifications. Exhibit 9, the affidavit of Seth

1056

12
Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 32 Document 55

Keshel, is a statistical analysis conducted by a “trained data analyst” who describes nothing about
his education, experience, or other qualifications, aside from “political involvement requiring a
knowledge of election trends and voting behavior.” Exhibit 14, the declaration of Ronald Watkins,
analyzes the security of electronic voting systems, but identifies only “experience as a network
and information defense analyst and a network security engineer.” Watkins does not describe what
that experience is with any degree of detail, nor does he explain how this experience qualifies him
to testify as to the security of electronic voting systems. In reality, Watkins operates the online
message board 8kun and is a key propagator of the QAnon conspiracy theory.31
And Exhibit 17, the affidavit of Russell James Ramsland, Jr., contains both statistical
“analysis” and a technical assessment of electronic voting systems, but Ramsland identifies no
education, experience, publications, or other qualifications in any relevant field. Indeed, Ramsland
concedes that he has relied on certain “experts and resources” (Exh. 17 at 1), but he does not
identify who those experts are, what their qualifications are, how they performed their work, or
how he relied on their work. The substance of his analysis is nonsensical. Ramsland claims that a
“spike” in Biden returns in the early morning the day after the election was a “statistical
impossibility” and evidence of fraud. (Amend. Cmplt. ¶¶77-79) Of course, this spike was just the
City of Milwaukee, a traditional Democratic stronghold, reporting its city-wide absentee-ballot
returns in one fell swoop when all counting at its central-count facility had concluded. It was
anticipated this would happen, as Milwaukee had warned that it would deliver absentee results

31

Drew Harwell, “To boost voter-fraud claims, Trump advocate Sidney Powell turns to unusual
source: The longtime operator of QAnon’s Internet home,” Washington Post (Dec. 1, 2020), available
at https://www.washingtonpost.com/technology/2020/12/01/powell-cites-qanon-watkins/ (last visited
Dec. 6, 2020).

1057

13
Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 32 Document 55

between 3:00 and 6:00 a.m. the morning after Election Day. 32 Rather than a statistical anomaly,
this was an entirely expected development.33

2. Plaintiff’s affiants fail to disclose a generally accepted methodology, or
any methodology at all.
Expert testimony requires a reliable methodology. Hartman v. EBSCO Indus., Inc., 758
F.3d 810, 817 (7th Cir. 2014). “An expert’s methodology can be evaluated by considering its error
rate, whether the methodology has been or is capable of being tested, whether it has been subject
to peer review, and whether it is generally accepted in the relevant community of experts.” Id.
Even if Plaintiffs’ “expert” affiants were qualified, none of them disclose any remotely reliable
methodology in arriving at their conclusions—and most disclose no methodology whatsoever.
As an initial matter, the Briggs and Braynard affidavits (Exhs. 2-3) rely on Braynard’s
survey results—but Braynard made no effort to make his survey even appear scientific. “The
criteria for the trustworthiness of survey evidence are that: (1) the ‘universe’ was properly defined;
(2) a representative sample of that universe was selected; (3) the questions to be asked of
interviewees were framed in a clear, precise and non-leading manner; (4) sound interview
procedures were followed by competent interviewers who had no knowledge of the litigation or
the purpose for which the survey was conducted; (5) the data gathered was accurately reported;
(6) the data was analyzed in accordance with accepted statistical principles[;] and (7) objectivity
of the entire process was assured.” LG Elecs. U.S.A., Inc. v. Whirlpool Corp., 661 F. Supp. 2d 940,
952 (N.D. Ill. 2009); see also Evory v. RJM Acquisitions Funding L.L.C., 505 F.3d 769, 776 (7th

32

Laurel White, “Wisconsin Election Officials Say Vote Counting Will Take Longer This Year.
Here's What To Expect,” WPR (Nov. 3, 2020), available at https://www.wpr.org/wisconsin-electionofficials-say-vote-counting-will-take-longer-year-heres-what-expect (last visited Dec. 5, 2020).

If the Court does determine an evidentiary hearing is necessary, Defendant would
request the right to bring Daubert challenges to each of Plaintiff’s experts.
33

1058

14
Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 32 Document 55

Cir. 2007) (“But we emphasize that survey evidence … must comply with the principles of
professional survey research; if it does not, it is not even admissible.”). Braynard’s affidavit
identifies no sampling method, no telephone protocols, no scripts used by interviewers, no quality
control steps, no information about who conducted the phone calls, and no information about how
voter telephone numbers were located and verified. None of Braynard’s estimates are presented
with any measures of uncertainty, like confidence intervals or margins of error. Braynard’s survey
has none of the indicia of reliability necessary to admit survey evidence. And because the Briggs
affidavit relies exclusively on the Braynard survey, it too should be ignored.
Braynard’s affidavit also contains conclusions about voters who indicated they were
indefinitely confined. But this discussion likewise lacks any meaningful methodology. Braynard
purportedly had unidentified researchers look at social media profiles they believed matched
specific voters to determine whether they were indefinitely confined on Election Day. No sampling
methodology is identified; no objective standards used in determining whether an individual is
indefinitely confined are identified; no information about how voter identities were verified is
identified; no quality control measures are identified. The Court cannot accept Braynard’s and
Plaintiff’s invitation to invalidate tens of thousands of votes based on subjective and unverifiable
assessments of social media pages that may not even belong to the voters in question.
Moreover, several of Plaintiff’s affidavits are statistical “analyses” that cloak their lack of
a coherent methodology in pseudoscientific language. At a bare minimum, in addition to using
generally accepted statistical tests, a reliable statistical methodology must contain an accounting
of the sample tested and must “correct for potentially explanatory variables.” Sheehan v. Daily
Racing Form, Inc., 104 F.3d 940, 942 (7th Cir. 1997) (expert was properly excluded where he
arbitrarily excluded certain individuals from a sample and failed to account for potential

1059

15
Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 32 Document 55

explanatory factors); see also Elliott v. CFTC, 202 F.3d 926, 934 (7th Cir. 2000) (expert statistical
testimony was unreliable where it failed to conduct key analyses that weighed upon his
conclusion). Plaintiffs’ experts do not use any standard or accepted statistical methodologies, do
not identify their data or even data sources, and fail to account for obvious explanatory factors.
Exhibit 4 is an anonymous statistical analysis purporting to show that counties using
Dominion machines favored Biden, but there is no meaningful description of what data was used,
when it was compiled, or where much of it was sourced from; no analysis or methodology
described or identified beyond the assertion that the author used “Chi-Squared Automatic
Interaction Detection,” which the author fails to even try to explain; and no results from any efforts
to control for confounding factors. The study also evidently ignores key confounding factors—for
instance, the graph on which the report relies appears to demonstrate that every voting system used
in Wisconsin yielded results favorable to Biden, and that a greater percentage of non-Dominion
machines in Wisconsin are above the prediction line—in other words, it is Wisconsin, and not
Dominion, that is more Biden-friendly than the overall sample.
The Keshel affidavit, Exhibit 9, is a statistical analysis of political trends that contains no
methodology whatsoever—there is no testing, no controls, just stray observations that certain
electoral outcomes seem odd to the author. The Ramsland affidavit, Exhibit 17, claims that it is
statistically improbable that a large number of ballots favoring Biden would be reported at one
time, but contains virtually every flaw a statistical analysis can have: it does not contain any
controls; it ignores obvious explanations for the identified phenomenon (i.e., it simply reflects the
timing of Milwaukee County’s reporting of absentee ballot results); uses a “random population of
Wisconsin votes” as its comparison group notwithstanding significant and meaningful differences
between different areas of the state; and fails to identify the sources of any of its data or

1060

16
Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 32 Document 55

assumptions concerning expected voter turnout. Exhibit 19, an anonymous statistical analysis of
vote reporting patterns, likewise contains virtually every error one can make: it does not identify
the source of the overwhelming majority of the data used; there are no meaningful controls used,
and no controls whatsoever used in the analysis related to Wisconsin; and it ignores obvious
confounding factors, including that Wisconsin counted in-person ballots before absentee ballots,
and that different parts of various states with substantial political differences reported results at
different times. In short, Plaintiffs’ statistical analyses are not analyses at all, and are instead just
a series of observations not grounded in any identifiable data set or reliable statistical testing. They
should be ignored.
So, too, with respect to the affidavits concerning the security of electronic voting systems
and supposed connections between Dominion and a variety of foreign countries. Exhibit 12, which
purports to be a forensic analysis of various websites and computer systems, employs no
meaningful methodology and appears to just be a series of screenshots that the author, without any
coherent explanation, maintains represents connections between various companies and certain
foreign countries and/or unlawful activity. For instance, the author insists that the existence of the
domain name “scorecard.indivisible.org” means that the organization Indivisible employed
scorecard software to manipulate the results of the election. (Exh. 12 at 8) Like Exhibit 12, the
anonymous analysis in Exhibit 13, which purportedly assesses the security of various electronic
voting systems, contains a dizzying array of pseudo-technical representations that lack any
coherent explanation or accepted methodology. These analyses too do not warrant the Court’s
consideration. See Varlen Corp. v. Liberty Mut. Ins. Co., 924 F.3d 456, 460 (7th Cir. 2019) (expert
properly excluded where he “offered no methodology to explain how he drew conclusions”);

1061

17
Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 32 Document 55

Bielskis v. Louisville Ladder, Inc., 663 F.3d 887, 895 (7th Cir. 2011) (expert testimony properly
excluded where expert “used no particular methodology to reach his conclusions”).
3. Plaintiff’s affidavits are unsupported, speculative, and unhelpful.
In addition to Plaintiff’s woefully insufficient expert affidavits, Plaintiff also offers fact
affidavits unsupported by the affiants’ personal knowledge and irrelevant to Wisconsin’s election.
The anonymous Exhibit 1 and the Cardozo affidavit, Exhibit 8, offer numerous observations about
the years-old elections in Venezuela, but make no coherent connection between activity in
Venezuela and the 2020 election in Wisconsin. The affidavit of Harri Hursti (Exh. 7) is a lengthy
discussion of issues arising out of a primary election in Georgia—again with no connection to any
Wisconsin election. This testimony should be disregarded as irrelevant.
Likewise, numerous affiants make factual representations for which they have no apparent
firsthand knowledge. The anonymous author of Exhibit 1 makes observations about the timing of
vote reporting in the 2020 election, but identifies no reason to believe she has firsthand knowledge
of when votes were counted or reported in any jurisdiction, nor does she identify any sources on
which she relied. (See Exh. 1 ¶26) The Cardozo affidavit contains numerous observations about
Venezuela’s purported contract with Smartmatic, but none of it is based on her personal experience
with the contract; she is simply stating the contents of a document she saw years after the fact. The
document was not included in Plaintiff’s filing. Exhibit 13 contains a variety of outlandish
representations with no reason to believe the author has firsthand knowledge of any of them—for
instance, the affiant makes extensive representations that Joe Biden and Barack Obama in 2013
and 2014 conspired to manipulate an election in an unidentified foreign country. The testimony of
these witnesses should be ignored. See Zilisch v. R.J. Reynolds Tobacco Co., No. 10-cv-474-bbc,
2011 WL 7630628, at *1 (W.D. Wis. June 21, 2011) (statements in affidavit were “inadmissible
because they are conclusory and not made on the basis of [affiant’s] personal knowledge”); Ross

1062

18
Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 32 Document 55

v. Bd. of Regents of Univ. of Wis. Sys., 655 F. Supp. 2d 895, 923 (E.D. Wis. 2009) (declining to
consider portions of affidavit “not based upon the affiant’s personal knowledge”).
Finally, the affidavit of Eric Oltmann, Exhibit 6, purports to recreate a conversation the
affiant purportedly overheard several months ago, in which someone Oltmann speculates was a
Dominion employee makes representations about the 2020 election. Oltmann then proceeds to
describe social media posts from a profile that he says belongs to the Dominion employee.
Oltmann’s affidavit layers speculation on top of hearsay to propagate a conspiracy theory about
election manipulation. Like every other affidavit offered by Plaintiff, it is unreliable and unworthy
of the Court’s consideration.

4. Several affidavits are anonymous and therefore inadmissible.
Plaintiff offers five anonymous affidavits on a variety of topics, including elections in
Venezuela (Exh. 1), statistical analysis of the 2020 election (Exhs. 4, 19), and analysis of electronic
voting systems (Exhs. 12, 13). Because the affiants are anonymous, it is impossible to assess their
credibility or qualifications; indeed, it is impossible to know whether their affidavits are even
verified by the affiant as required by 28 U.S.C § 1746. See also Fed. R. Civ. P. 56(c)(4) (“An
affidavit or declaration used to support or oppose a motion must be made on personal knowledge,
set out facts that would be admissible in evidence, and show that the affiant or declarant is
competent to testify on the matters stated.”); Consol. Water Power Co. v. 0.40 Acres of Land, No.
10-CV-397-bbc, 2011 WL 1831608, at *5 (W.D. Wis. May 12, 2011) (affidavits should identify
“the name of the affiant”). Anonymous affidavits should be excluded or ignored.
C.

Plaintiff provides no evidence to support his preposterous claims.

Plaintiff alleges that Dominion voting machines could be compromised, but provides no evidence
that proves, or even suggests, that Wisconsin machines actually were tampered with. Consider
Exhibit 6: It begins by recreating a conversation the declarant allegedly overhead several months

1063

19
Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 32 Document 55

ago, and then proceeds to weave an elaborate conspiracy theory based on who one of the
participants might have been; this hodgepodge of rank speculation on top of hearsay is not
evidence. Exhibit 12 is no more compelling in presenting an anonymous declarant’s claims
(“supported” by an impenetrable sequence of random screenshots) that Dominion is affiliated with
China and Iran. Nor is Exhibit 1, which contains an unnamed declarant’s opinions about elections
in Venezuela. Exhibit 14’s author’s only conclusion is that voting machines could possibly be
tampered with. None of this is relevant, probative, or compelling. Indeed, taken together,
Plaintiff’s proffered evidence fails to even connect his wild theories to Wisconsin. This is why the
court in King v. Whitmer, found that all that Plaintiff’s attorney alleged were “an amalgamation of
theories, conjecture, and speculation that such alterations were possible.” Op. & Order, at *34.
Paragraph 3 of the Amended Complaint promises an “egregious range of conduct”
involving Dominion voting machines in Milwaukee, Dane, La Crosse, Waukesha, St. Croix,
Washington, Bayfield, and Ozaukee Counties. Plaintiff’s evidence shows that of those counties,
only two—Ozaukee and Washington—use Dominion machines (Amend. Cmplt. Exh. 5); Trump
won those counties with 55%34 and 68%35 of the vote. Despite pages of allegations and declarations
relating to Dominion and its potential susceptibility to hacking, Plaintiff offers no actual facts.
Plaintiff’s claim that approximately 7,000 voters moved from Wisconsin and voted
illegally is also unavailing. Amend. Cmplt. ¶51. This analysis does not account for voters changing
their addresses for reasons that still allow for voting in Wisconsin. For example, college students
attending school out of state, or retirees temporarily travelling south prior to winter are common.
Such voters retain the right to vote in Wisconsin. See Wis. Stat. § 6.10(1) (“The residence of a
34

https://www.co.ozaukee.wi.us/DocumentCenter/View/14392/ElectionSummaryReport-11-3-20 (last
visited Dec. 5, 2020).
35
https://www.co.washington.wi.us/uploads/docs/electionsummaryreport1132020-Final.pdf (last
visited Dec. 5, 2020).

1064

20
Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 32 Document 55

person is the place where the person’s habitation is fixed, without any present intent to move, and
to which, when absent, the person intends to return.”). Plaintiff provides no evidence that even one
of these out of state voters should be disenfranchised. And Wisconsin law requires that a challenge
to a ballot on the basis of the voter’s eligibility must be raised on a ballot-by-ballot basis, at the
time of voting or counting, and the challenge to any individual ballot must be for cause. See Wis.
Stat. §§ 6.925-.93, 7.52(5); Wis. Admin. Code. § EL 9.02. Wisconsin law does not countenance
Plaintiff’s belated, en masse challenge to thousands of ballots based on (totally unreliable)
statistical analysis.
D.

Plaintiff has no valid claim under the Electors and Election Clauses
because WEC’s guidance is consistent with Wisconsin law.

Plaintiff has not asserted a valid claim for a violation of either the Electors Clause or the
Election Clause of the U.S. Constitution. Even if such a claim were cognizable, but see Bognet v.
Secretary, 2020 WL 6686120 (3d Cir. 2020), Plaintiff erroneously argues that WEC failed to
follow Wisconsin’s election laws by issuing contrary guidance. An actual reading of the statutes
shows WEC’s guidance comported with Wisconsin’s election laws.
Consistent with the Electors and Elections Clauses, state legislatures can delegate authority
to administer elections. See Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n, 576 U.S.
787, 814 (2015). Wisconsin has a detailed statutory framework governing elections, but the
Legislature has delegated to the WEC authority to administer elections. See Wis. Stat. § 5.05(1)
(“General authority. The elections commission shall have the responsibility for the administration
of chs. 5 to 10 and 12 and other laws relating to elections and election campaigns….”). Plaintiff
challenges guidance reflecting longstanding interpretations of Wisconsin election law. His
challenges fail for several reasons.

1065

21
Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 32 Document 55

First, Plaintiff, as a Wisconsin voter, is required to bring his challenges through a complaint
to the WEC pursuant to Wis. Stat. § 5.06. This provision provides an administrative remedy to
electors and allows WEC to investigate the complaint and potentially provide a hearing. Wis. Stat.
§ 5.06(1), (5). Critically, Wis. Stat. § 5.06(2) prohibits a voter from commencing a court action
unless they complied with the administrative procedure. Because Plaintiff has failed to exhaust his
administrative remedies, this Court cannot provide the extraordinary relief requested. See Glisson
v. U.S. Forest Serv., 55 F.3d 1325, 1326 (7th Cir. 1995).
Second, Plaintiff’s claims are barred by the doctrine of laches and the Eleventh
Amendment. (See Evers Br. in Supp. of Mot. to Dismiss at 12-16, 24-26)
Third, Plaintiff’s claims are baseless and fail on the merits. Plaintiff raises two primary
arguments under Wisconsin law—that election officials must discard any absentee ballot for which
the witness provided incomplete address information and that ballots submitted by voters who
designated themselves indefinitely confined should be discounted. Neither argument is correct.
1. Longstanding WEC guidance on witness address information is consistent
with Wisconsin law.
Despite the WEC having longstanding guidance concerning election officials assisting with
deficient witness addresses, Plaintiff now claims that guidance contravenes Wisconsin law. On
October 18, 2016, the WEC advised all municipal clerks that, if an absentee-ballot envelope had a
missing or incomplete witness address, clerks could make reasonable attempts to obtain the
missing information. 36 Notably, the proposal to adopt this guidance was made by a Republican
appointee to the WEC, was supported by the Wisconsin Department of Justice (under the
leadership of a Republican Attorney General), and was unanimously adopted by the WEC. The

36

https://elections.wi.gov/sites/elections.wi.gov/files/memo/20/guidance insufficient witness add
ress amended 10 1 38089.pdf (last visited Dec. 5, 2020).

1066

22
Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 32 Document 55

WEC has not changed its guidance since 2016, and it incorporated this recommendation into its
Election Administration Manual. 37 The November 2020 election was the twelfth consecutive
election for which this guidance has been in place.
The guidance on witness addresses is consistent with Wisconsin law, which encourages
clerks to correct errors with witness addresses: clerks may “return the ballot to the elector, inside
the sealed envelope when an envelope is received, together with a new envelope if necessary,
whenever time permits the elector to correct the defect and return the ballot.” Wis. Stat. § 6.87(9).
This is not an exclusive remedy. Although a ballot without a witness address cannot be counted,
nothing in the statute prohibits the clerk from taking steps to cure a missing address. Doing so is
consistent with the statutory instruction that provisions of the elections code “shall be construed
to give effect to the will of the electors, if that can be ascertained.” Wis. Stat. § 5.01(1).38 No statute
commands that the witness is the only person who can fill in the address information. Thus, the
WEC’s longstanding guidance is entirely consistent with Wisconsin law. If the Legislature
disagreed with that interpretation, it could have changed the statute any time within the last four
years, but it did not.
2. The provision on “indefinitely confined” voters has been longstanding.
Plaintiff misconstrues Wisconsin law to argue that the WEC’s guidance on indefinitely
confined voters is unlawful. The text of the provision now numbered as Wis. Stat. § 6.86(2)(a) has
existed in the Wisconsin Statutes for more than 40 years and has been unchanged since 1985. For
three-and-a-half decades, that provision has provided an alternate method for voters to obtain a

37

https://elections.wi.gov/sites/elections.wi.gov/files/202010/Election%20Administration%20Manual
%20%282020-09%29.pdf at 99-100 (last visited Dec. 6, 2020).
38
Arguably, Wis. Stat. § 6.84 overrides this legislative command by requiring that several
provisions related to absentee voting be strictly applied. Assuming without conceding that section 6.84
is constitutional, by its own terms it does not apply to Wis. Stat. § 6.87(9).

1067

23
Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 32 Document 55

mail-in absentee ballot if they are “indefinitely confined.” Section 6.86(2)(a) recognizes that some
electors are indefinitely confined in ways that preclude voting in person, and may complicate the
typical process of obtaining an absentee ballot. The provision offers an alternative, based on an
elector’s statement that they are indefinitely confined.
Section 6.86(2)(a) does not excuse indefinitely confined voters from additional safeguards
that apply to mail-in absentee ballots, including the requirement that each ballot be signed by the
voter, witnessed by an adult U.S. citizen, and carefully opened, reviewed, and tabulated during a
public canvas. Wis. Stat. §§ 6.87, 6.88. On March 29, 2020, the WEC issued guidance specifically
addressing “Indefinitely Confined Absentee Applications.”39 In that guidance, the WEC stated that
the statutory definition of “age, illness, infirmity or disability” does not require a voter to meet a
particular qualification and “indefinitely confined status need not be permanent.”40 The guidance
expressly notes that voters “self-certify” whether they are indefinitely confined. 41 The WEC also
instructed municipal clerks to “remove the name of any elector from the list of indefinitely
confined electors upon receipt of reliable information that an elector no longer qualifies for that
designation and service.” 42 The Wisconsin Supreme Court has reviewed the March 29 guidance
and deemed it accurate. See Jefferson v. Dane Cty., No. 2020AP557-OA, Order, at *2 (Wis. Mar.
31, 2020) (noting in context of order in response to temporary injunction motion that the WEC
guidance “provides the clarification on the purpose and proper use of the indefinitely confined
status that is required at this time”).

39

https://elections.wi.gov/sites/elections.wi.gov/files/202003/Clerk%20comm%20re.%20Indefinitely
%20Confined%203.29.20.pdf (last visited Dec. 6, 2020).
40
Id.
41
Id.
42
Id. at 3.

1068

24
Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 32 Document 55

Plaintiff complains about additional WEC guidance, issued on May 13, 2020, that a clerk
cannot remove a voter from the indefinitely confined list based on the clerk’s unsupported belief
that the elector is not indefinitely confined. This does not contradict the statute. The portion cited
by Plaintiff was an instruction consistent with decades of interpretation and guidance that voters
self-certify whether they are indefinitely confined; and it left in place the clear instruction that
clerks should remove a voter from the indefinitely confined list upon receiving reliable information
that the voter was no longer indefinitely confined. The WEC’s March guidance, with the
Wisconsin Supreme Court’s imprimatur, still applies. There is no statutory basis for Plaintiff’s
belief that municipal clerks are obliged to investigate voters claiming to be indefinitely confined.
Notably, Plaintiff has not claimed or provided any evidence that a single voter who claimed
indefinitely confined status did so improperly. Plaintiff asserts only his belief that it was odd so
many people claimed this status during the COVID-19 pandemic. But it is imminently logical that
the pandemic would increase the number of people who considered themselves indefinitely
confined. And, because the Jefferson lawsuit brought increased attention to the indefinitely
confined provision, more people may have known about and chosen to avail themselves of the
law. The Jefferson case remains pending before the Wisconsin Supreme Court, where the merits
were argued at the end of September. If that court had concerns about voters using (or misusing)
the statute for the November election, it could and would have granted additional preliminary
relief. It did not do so, and Plaintiff provides no basis for this Court to second-guess that decision.
E.

Plaintiff makes no valid claim under the Fourteenth Amendment.

Plaintiff’s Equal Protection and Due Process43 claims, like the Elections and Electors
claim, fails because WEC’s guidance is entirely consistent with Wisconsin law. To the extent
43

It is unclear whether Plaintiff is suing as a class of one or is arguing that he represents all Wisconsin
voters. If his claim is based on “disparate treatment of Wisconsin voters” (Amend. Cmplt. ¶114) or “all

1069

25
Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 32 Document 55

Plaintiff makes a claim for unequal treatment under Wisconsin’s election laws, that also fails
because there is no unequal treatment, or a rational basis exists for the laws.
The “rational-basis variant of substantive due process differs little, if at all, from the most
deferential form of equal protection review.” Hayden ex rel. A.H. v. Greensburg Cmty. Sch. Corp.,
743 F.3d 569, 576 (7th Cir. 2014). “Unless a governmental practice encroaches on a fundamental
right,” substantive due process and equal protection “requires only that the practice be rationally
related to a legitimate government interest, or alternatively phrased, that the practice be neither
arbitrary nor irrational.” Lee v. City of Chicago, 330 F.3d 456, 467 (7th Cir. 2003). Substantive
due process is “not a blanket protection against unjustifiable interferences with property.” Id. at
467. “The rational-basis requirement sets the legal bar low and simply requires a rational
relationship between the disparity of treatment and some legitimate governmental purpose.” D.B.
ex rel. Kurtis B. v. Kopp, 725 F.3d 681, 686 (7th Cir. 2013) (internal quotation marks omitted).
From the outset, it is important to note that the WEC’s guidance treated all voters equally.
Any voter had the opportunity to obtain an absentee ballot. Any voter believing themselves
indefinitely confined could notify their municipal clerk.
Speculation and conjecture regarding switched votes cannot establish an equal protection
or due process claim. See King, Op. & Order, at *34 (“with nothing but speculation and conjecture
that votes for President Trump were destroyed, discarded or switched to votes for Vice President
Biden, Plaintiffs’ equal protection claim fails”); Wood, 2020 WL 6817513, at *9 (“Wood cannot
transmute allegations that state officials violated state law into a claim that his vote was somehow
weighted differently than others.”); Bognet, 2020 WL 6686120, at *12 (“Put another way, a vote
candidates, political parties, and voters” (id. ¶115), then there is no standing because that would be a general
grievance as opposed to a concrete injury to Plaintiff. If his claim is individual, he has no injury.
Plaintiff does not specify whether he is making a procedural or substantive due process claim. However,
it appears to be a substantive due process claim.

1070

26
Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 32 Document 55

cast by fraud or mailed in by the wrong person through mistake, or otherwise counted illegally,
has a mathematical impact on the final tally and thus on the proportional effect of every vote, but
no single voter is specifically disadvantaged.” (internal quotation marks omitted)). Plaintiff has
not established that any votes were changed or provided any theory as to how votes were diluted.
Even if the Plaintiff had evidence to support his claims, this case would strongly resemble
Hennings v. Grafton, where six electors requested a new election for several county officers
because of “inaccurate tabulation of votes in fifty precincts and ‘arbitrary’ action by the defendant
county clerk as chief election official, all stemming directly or indirectly from the malfunctioning
of electronic voting devices.” 523 F.2d 861, 862-63 (7th Cir. 1975). Despite the clear evidence of
inaccurate vote counts, the court held that “not every election irregularity … will give rise to a
constitutional claim and an action under § 1983. Mere violation of a state statute by an election
official, for example, will not.” Id. at 864. The Seventh Circuit continued:
Voting device malfunction, the failure of election officials to take statutorily prescribed
steps to diminish what was at most a theoretical possibility that the devices might be
tampered with, and the refusal of those officials after the election to conduct a retabulation,
assuming these events to have occurred, fall far short of constitutional infractions, absent
aggravating circumstances of fraud or other wilful conduct….

Id. The Seventh Circuit further asserted that “errors and irregularities … are inevitable, and no
constitutional guarantee exists to remedy them.” Id. at 865. This controlling case alone would
foreclose any of the claims brought by Plaintiff.
Nonetheless, even the merits show there are no constitutional claims. The Equal Protection
Clause does not require uniform treatment, but only that any differences be rationally based on a
legitimate government interest. Indefinitely confined voter laws ensure that vulnerable voters—
any voter who is indefinitely confined due to “age, physical illness or infirmity or is disabled,”
Wis. Stat. § 6.86(2)(a)—can safely cast their ballots. Protecting such voters’ safety while ensuring
they can vote is a legitimate governmental interest.

1071

27
Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 32 Document 55

Other guidance issued by the WEC serves the purpose of ensuring that elections account
for the preferences of all eligible voters who choose to participate. Wis. Stat. § 5.01(1) provides
that Wisconsin’s election laws “shall be construed to give effect to the will of the electors, if that
can be ascertained from the proceedings, notwithstanding informality or failure to fully comply
with some of their provisions.” Wis. Stat. § 7.50(2) reiterates that point, stating that ballots “shall
be counted for the person or referendum question for whom or for which they were intended, so
far as the electors' intent can be ascertained from the ballots notwithstanding informality or failure
to fully comply with other provisions of chs. 5 to 12.” As Chief Justice Roggensack of the
Wisconsin Supreme Court recently noted, “The right to vote is protected by Wis. Const. art. III, §
1. Therefore, a vote legally cast and received by the time the polls close on Election Day must be
counted if the ballot expresses the will of the voter.” O’Bright v. Lynch, No. 2020AP1761-OA,
Order, at *3, ¶7 (Wis. Oct. 29, 2020) (Roggensack, C.J. concurring).
WEC guidance furthers that purpose while still remaining entirely consistent with absentee
voting requirements. For example, the witness address guidance does not remove the requirement
for an address, but allows clerks the discretion to help correct that error so a ballot is not discounted
because of a technicality. There is nothing nefarious nor illegal with doing so. The WEC’s
guidance is rationally related to ensuring everyone who wants to safely vote, can.
II.

An Adequate Remedy at Law Exists.
The recount procedures under Wis. Stat. § 9.01 unambiguously constitute the “exclusive

remedy” for challenging any election results: “EXCLUSIVE REMEDY. This section constitutes the
exclusive judicial remedy for testing the right to hold an elective office as the result of an alleged
irregularity, defect or mistake committed during the voting or canvassing process.” Wis. Stat.
§ 9.01(11). Section 9.01 generally provides for a recount process for an aggrieved party following
an election. Judicial review cannot occur until after a recount, and that appeal must go to state

1072

28
Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 32 Document 55

circuit court. See Wis. Stat. § 9.01(6)(a); Trump v. Wis. Elections Comm’n, No. 2020AP1971-OA,
Order at *2 (Wis. Dec. 3, 2020); see also id. (Hagedorn, J. concurring) (“[C]hallenges to election
results are also governed by law. … [Section 9.01] provides that these actions should be filed in
the circuit court, and spells out detailed procedures for ensuring their orderly and swift disposition.
See § 9.01(6)-(8). Consequently, an adequate, and exclusive, state law remedy exists to challenge
results of an election.”). Given that President Trump is prosecuting an appeal in state court under
this exclusive process, and given that Plaintiff has no cognizable interest here distinct from the
President’s, Plaintiff’s motion necessarily fails to meet this prerequisite for a TRO.
III.

Plaintiff Will Not Suffer Any Harm from Denial of Injunctive Relief.
Plaintiff must establish “that he will suffer irreparable harm absent preliminary injunctive

relief during the pendency of his action.” Whitaker, 858 F.3d at 1044. Plaintiff has not alleged any
harm. Plaintiff asserts his vote has been diluted. However, a “vote dilution claim alleges that the
State has enacted a particular voting scheme as a purposeful device to minimize or cancel out the
voting potential” groups, often racial or ethnic minorities in the context of redistricting. Miller v.
Johnson, 515 U.S. 900, 911 (1995). The WEC’s guidance does not disenfranchise a single voter,
nor has it minimized the influence of any groups, protected or otherwise. Plaintiff has not been
disenfranchised, nor has he pleaded any specific harm except that his preferred candidate lost the
election. This is a generalized grievance, not an actual harm. Lance v. Coffman, 549 U.S. 437, 442
(2007) (per curiam). Allowing the status quo to continue does not harm Plaintiff.
IV.

By Contrast, the Requested Relief would Cause Enormous Prejudice to Defendants
and Wisconsin Voters.
The relief requested by the Plaintiff would retroactively deprive millions of Wisconsin

voters of their constitutional right to vote in the 2020 presidential election. Plaintiff’s

1073

29
Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 32 Document 55

unprecedented request would nullify the outcome of an entire election. That harm is
unprecedented, and would crack the bedrock of representative democracy.
The U.S. Supreme Court has repeatedly emphasized the fundamental importance of the
right to vote. “No right is more precious in a free country than that of having a voice in the election
of those who make the laws under which, as good citizens, we must live. Other rights, even the
most basic, are illusory if the right to vote is undermined.” Wesberry v. Sanders, 376 U.S. 1, 17
(1964). “The right to vote freely for the candidate of one’s choice is of the essence of a democratic
society, and any restrictions on that right strike at the heart of representative government.”
Reynolds v. Sims, 377 U.S. 533, 555 (1964). Voting is “one of the most fundamental rights of our
citizens.” Bartlett v. Strickland, 556 U.S. 1, 10 (2009). Plaintiff’s request undermines a belief this
country was founded upon. A greater public harm can hardly be conceived.
Besides the obvious harm to the millions of Wisconsin voters, granting the Plaintiff’s order
would have other irreparable consequences. The State of Wisconsin and its 1,850 municipalities
spent millions of dollars preparing for and conducting the November election. Governor Evers
enlisted 400 members of the National Guard to ensure the election was properly staffed. All of the
resources that went into protecting voters and election officials would be for naught if the Plaintiff
obtains his requested relief. The relief, if granted, would also undermine the State’s ability to
conduct its own elections, and open the door to additional frivolous challenges in the future. Not
only that, but the requested relief would raise serious federalism and separation of powers
questions. Those harms heavily weigh against Plaintiff. Accordingly, the motion should be denied.
CONCLUSION
For the reasons above, Plaintiff’s Amended Motion for Temporary Restraining Order and
Preliminary Injunction to Be Considered in an Expedited Manner (Dkt. 10) should be denied.

1074

30
Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 32 Document 55

Dated: December 7, 2020

Respectfully submitted,
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Post Office Box 1784
Madison, WI 53701-1784
Telephone: 608-256-0226
jmandell@staffordlaw.com
rsnyder@staffordlaw.com
rmanthe@staffordlaw.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org
Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers

1075

31
Case 2:20-cv-01771-PP Filed 12/07/20 Page 32 of 32 Document 55

EXHIBIT 1

1076

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 55-1

OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 4, 2020

To:
Gregory M. Erickson
Erick G. Kaardal
Mohrmann, Kaardal and Erickson
150 S. 5th Street, Suite 3100
Minneapolis, MN 55414
Colin T. Roth
Thomas C. Bellavia
Colin R. Stroud
Brian P. Keenan
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857

Brian S. Levy
Katten & Temple
11512 N. Port Washington Road, Suite 101J
Mequon, WI 53092
Joseph S. Goode
Mark M. Leitner
John W. Halpin
Allison E. Laffey
Laffey, Leitner & Goode LLC
325 E. Chicago Street, Suite 200
Milwaukee, WI 53202
*Address list continued on page 5.

You are hereby notified that the Court has entered the following order:
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70 and
a supplement thereto, a supporting legal memorandum, and supporting expert reports have been
filed on behalf of petitioners, Wisconsin Voters Alliance, et al. A response to the petition has been
filed by respondents, Wisconsin Elections Commission, Ann S. Jacobs, Mark L. Thomsen, Marge
Bostelman, Julie M. Glancey, Dean Knudsen, and Robert F. Spindell, and a separate response has
been filed by respondent Governor Tony Evers. Amicus briefs regarding the issue of whether to
grant leave to commence an original action have been filed by (1) Christine Todd Whitman, et al;
(2) the City of Milwaukee; (3) Wisconsin State Conference NAACP, et al.; and (4) the Center for
Tech and Civic Life. In addition, a motion to intervene has been filed by proposed intervenorrespondent, Democratic National Committee.
After considering all of the filings, we conclude that this petition does not satisfy our
standards for granting leave to commence an original action. Although the petition raises time-

1077

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 7 Document 55-1

Page 2
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

sensitive questions of statewide significance, “issues of material fact [would] prevent the court
from addressing the legal issues presented.” State ex rel. Ozanne v. Fitzgerald, 2011 WI 43, ¶19,
334 Wis. 2d 70, 798 N.W.2d 436 (Prosser, J., concurring). It is therefore not an appropriate case
in which to exercise our original jurisdiction. Accordingly,
IT IS ORDERED that the petition for leave to commence an original action is denied; and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.
BRIAN HAGEDORN, J., (concurring). The Wisconsin Voters Alliance and a group of
Wisconsin voters bring a petition for an original action raising a variety of questions about the
operation of the November 3, 2020 presidential election. Some of these legal issues may, under
other circumstances, be subject to further judicial consideration. But the real stunner here is the
sought-after remedy. We are invited to invalidate the entire presidential election in Wisconsin by
declaring it “null”—yes, the whole thing. And there’s more. We should, we are told, enjoin the
Wisconsin Elections Commission from certifying the election so that Wisconsin’s presidential
electors can be chosen by the legislature instead, and then compel the Governor to certify those
electors. At least no one can accuse the petitioners of timidity.
Such a move would appear to be unprecedented in American history. One might expect
that this solemn request would be paired with evidence of serious errors tied to a substantial and
demonstrated set of illegal votes. Instead, the evidentiary support rests almost entirely on the
unsworn expert report1 of a former campaign employee that offers statistical estimates based on
call center samples and social media research.
This petition falls far short of the kind of compelling evidence and legal support we would
undoubtedly need to countenance the court-ordered disenfranchisement of every Wisconsin voter.
The petition does not even justify the exercise of our original jurisdiction.
As an initial matter, the Wisconsin Supreme Court is not a fact-finding tribunal. Yet the
petition depends upon disputed factual claims. In other words, we couldn’t just accept one side’s
description of the facts or one side’s expert report even if we were inclined to believe them.2 That
alone means this case is not well-suited for an original action. The petition’s legal support is no
less wanting. For example, it does not explain why its challenge to various election processes
1

After filing their petition for original action, the Petitioners submitted a second expert
report. But the second report only provides additional computations based on the assumptions and
calculations in the initial expert report.
2

The Attorney General and Governor offer legitimate arguments that this report would not
even be admissible evidence under Wis. Stat. § 907.02 (2017-18).
All subsequent references to the Wisconsin Statutes are to the 2017-18 version.

1078

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 7 Document 55-1

Page 3
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

comes after the election, and not before. Nor does it grapple with how voiding the presidential
election results would impact every other race on the ballot, or consider the import of election
statutes that may provide the “exclusive remedy.”3 These are just a few of the glaring flaws that
render the petition woefully deficient. I therefore join the court’s order denying the original action.
Nonetheless, I feel compelled to share a further observation. Something far more
fundamental than the winner of Wisconsin’s electoral votes is implicated in this case. At stake, in
some measure, is faith in our system of free and fair elections, a feature central to the enduring
strength of our constitutional republic. It can be easy to blithely move on to the next case with a
petition so obviously lacking, but this is sobering. The relief being sought by the petitioners is the
most dramatic invocation of judicial power I have ever seen. Judicial acquiescence to such
entreaties built on so flimsy a foundation would do indelible damage to every future election. Once
the door is opened to judicial invalidation of presidential election results, it will be awfully hard to
close that door again. This is a dangerous path we are being asked to tread. The loss of public
trust in our constitutional order resulting from the exercise of this kind of judicial power would be
incalculable.
I do not mean to suggest this court should look the other way no matter what. But if there
is a sufficient basis to invalidate an election, it must be established with evidence and arguments
commensurate with the scale of the claims and the relief sought. These petitioners have come
nowhere close. While the rough and tumble world of electoral politics may be the prism through
which many view this litigation, it cannot be so for us. In these hallowed halls, the law must rule.
Our disposal of this case should not be understood as a determination or comment on the
merits of the underlying legal issues; judicial review of certain Wisconsin election practices may
be appropriate. But this petition does not merit further consideration by this court, much less grant
us a license to invalidate every single vote cast in Wisconsin’s 2020 presidential election.
I am authorized to state that Justices ANN WALSH BRADLEY, REBECCA FRANK
DALLET, and JILL J. KAROFSKY join this concurrence.
ROGGENSACK, C.J. (dissenting). It is critical that voting in Wisconsin elections not
only be fair, but that the public also perceives voting as having been fairly conducted.
This is the third time that a case filed in this court raised allegations about purely legal
questions that concern Wisconsin Elections Commission (WEC) conduct during the November 3,

3

See Wis. Stat. § 9.01(11) (providing that § 9.01 “constitutes the exclusive judicial remedy
for testing the right to hold an elective office as the result of an alleged irregularity, defect or
mistake committed during the voting or canvassing process”); Wis. Stat. § 5.05(2m)(k) (describing
“[t]he commission’s power to initiate civil actions” under § 5.05(2m) as the “exclusive remedy for
alleged civil violations of chs. 5 to 10 or 12”).

1079

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 7 Document 55-1

Page 4
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

2020, presidential election.4 This is the third time that a majority of this court has turned its back
on pleas from the public to address a matter of statewide concern that requires a declaration of
what the statutes require for absentee voting. I dissent and write separately because I have
concluded that the court has not meet its institutional responsibilities by repeatedly refusing to
address legal issues presented in all three cases.
I agree with Justice Hagedorn that we are not a circuit court, and therefore, generally, we
do not take cases for which fact-finding is required. Green for Wisconsin v. State Elections Bd.,
2006 WI 120, 297 Wis. 2d 300, 301, 723 N.W.2d 418. However, when the legal issue that we
wish to address requires it, we have taken cases that do require factual development, referring any
necessary factual determinations to a referee or to a circuit court. State ex rel. LeFebre v. Israel,
109 Wis. 2d 337, 339, 325 N.W.2d 899 (1982); State ex rel White v. Gray, 58 Wis. 2d 285, 286,
206 N.W.163 (1973).
We also have taken cases where the issues we wish to address are purely legal questions
for which no factual development is required in order to state what the law requires. Wisconsin
Legislature v. Palm, 2020 WI 42, 391 Wis. 2d 497, 942 N.W.2d 900. The statutory authority of
WEC is a purely legal question. There is no factual development required for us to declare what
the law requires in absentee voting.
Justice Hagedorn is concerned about some of the relief that Petitioners request. He begins
his concurrence saying, "the real stunner here is the sought after remedy." He next relates, "The
relief being sought by the petitioners is the most dramatic invocation of judicial power I have ever
seen." Then, he concludes with, "this petition does not merit further consideration by this court,
much less grant us a license to invalidate every single vote cast in Wisconsin’s 2020 presidential
election."5
Those are scary thoughts, but Justice Hagedorn has the cart before the horse in regard to
our consideration of this petition for an original action. We grant petitions to exercise our
jurisdiction based on whether the legal issues presented are of state wide concern, not based on the
remedies requested. Petition of Heil, 230 Wis. 428, 284 N.W.42 (1938).
Granting a petition does not carry with it the court's view that the remedy sought is
appropriate for the legal issues raised. Historically, we often do not provide all the relief requested.
Bartlett v. Evers, 2020 WI 68, ¶9, 393 Wis. 2d 172, 945 N.W.2d 685 (upholding some but not all
partial vetoes). There have been occasions when we have provided none of the relief requested by
the petitioner, but nevertheless declared the law. See Sands v. Menard, Inc., 2010 WI 96, ¶46, 328
Wis. 2d 647, 787 N.W.2d 384 (concluding that while reinstatement is the preferred remedy under
4

Trump v. Evers, No. 2020AP1971-OA, unpublished order (Wis. S. Ct. Dec. 3, 2020);
Mueller v. WEC, No. 2020AP1958-OA, unpublished order (Wis. S. Ct. Dec. 3, 2020) and
Wisconsin Voters Alliance v. WEC, No. 2020AP193-OA.
5

Justice Hagedorn forgets to mention that one form of relief sought by Petitioners is, "Any
other relief the Court deems appropriate."

1080

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 7 Document 55-1

Page 5
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

Title VII, it is an equitable remedy that may or may not be appropriate); Coleman v. Percy, 96
Wis. 2d 578, 588-89, 292 N.W.2d 615 (1980) (concluding that the remedy Coleman sought was
precluded).
We have broad subject matter jurisdiction that enables us to grant the petition for original
action pending before us. Our jurisdiction is grounded in the Wisconsin Constitution. Wis. Const.,
art. VII, Section 3(2); City of Eau Claire v. Booth, 2016 WI 65, ¶7, 370 Wis. 2d 595, 882 N.W.2d
738.
I dissent because I would grant the petition and address the people of Wisconsin's concerns
about whether WEC's conduct during the 2020 presidential election violated Wisconsin statutes.
As I said as I began, it is critical that voting in Wisconsin elections not only be fair, but that the
public also perceives voting as having been fairly conducted. The Wisconsin Supreme Court
should not walk away from its constitutional obligation to the people of Wisconsin for a third time.
I am authorized to state that Justices ANNETTE KINGSLAND ZIEGLER and REBECCA
GRASSL BRADLEY join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Tearman Spencer
Mary L. Schanning
Scott F. Brown
Kathryn Z. Block
Patrick J. McClain
Tyrone M. St. Junior
James M. Carroll
Milwaukee City Attorney's Office
200 East Wells Street
800 City Hall
Milwaukee, WI 53202
Kendall W. Harrison
Mike B. Wittenwyler
Godfrey & Kahn
1 E. Main St., Ste 500
P.O. Box 2719
Madison, WI 53701-2719

1081

Jeffrey A. Mandell
Rachel E. Snyder
Stafford Rosenbaum LLP
222 W. Washington Avenue
Post Office Box 1784
Madison, WI 53701
Charles G. Curtis, Jr.
Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Ste. 201
Madison, WI 53703
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street Suite 500
Milwaukee, WI 53202

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 7 Document 55-1

Page 6
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

Joshua Matz
Harmann Singh
350 Fifth Avenue, Suite 7110
New York, NY 10118
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
Susman Godfrey LLP
1000 Louisiana Street
Suite 5100
Houston, TX 77002
Paul Smith
Campaign Legal Center
1101 14th Street NW, Suite 400
Washington, DC 20005

1082

David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
Marc E. Elias
John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 7 Document 55-1

EXHIBIT 2

1083 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 17 Document 55-2

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

Motion granted.
2020 WL 6821992
Only the Westlaw citation is currently available.
United States District Court, M.D. Pennsylvania.

DONALD J. TRUMP FOR
PRESIDENT, INC., et al., Plaintiffs,
v.
Kathy BOOCKVAR, et al., Defendants.
No. 4:20-CV-02078
|
Filed November 21, 2020
Synopsis
Background: Voters and President's reelection campaign
brought action against Secretary of the Commonwealth
of Pennsylvania and county boards of elections, seeking
to invalidate millions of votes cast by Pennsylvanians in
presidential election during COVID-19 pandemic based on
allegations that Secretary's authorization of notice-and-cure
procedure for procedurally defective mail-in ballots violated
the Equal Protection Clause and that poll watchers were
impermissibly excluded from canvass. Secretary and county
boards of elections moved to dismiss.

Holdings: The District Court, Matthew W. Brann, J., held
that:
voters lacked standing to pursue action;
campaign lacked associational standing to pursue action;
campaign lacked competitive standing to pursue action;
rational basis existed for Secretary's decision to provide
counties with discretion to use notice-and-cure procedure for
procedurally defective mail-in ballots, and thus, Secretary's
decision did not violate voters' rights under the Equal
Protection Clause; and
campaign failed to allege that its poll watchers were treated
differently than opposing party presidential candidate's poll
watchers, as required to state equal protection claim for
allegedly excluding watchers from canvass.

Attorneys and Law Firms
Brian C. Caffrey, Marc A. Scaringi, Rudolph William
Giuliani, Scaringi & Scaringi PC, Rudolph Giuliani, PLLC,
Harrisburg, PA, New York, NY, for Plaintiff.
Thomas W. King, III, Dillon McCandless King Coulter &
Graham LLP, Buter, PA, for Intervenor Plaintiff.
Daniel T. Brier, Donna A. Walsh, John B. Dempsey, Karen
Mascio Romano, Keli M. Neary, Nicole J. Boland, Stephen
Moniak, John Coit, John B. Hill, Andrew F. Szefi, Christina
C. Matthias, Mark A. Aronchick, Michele D. Hangley,
Robert A. Wiygul, Virginia Scott, Elizabeth A. Dupuis,
Molly E. Meacham, Edward D. Rogers, Elizabeth Wingfield,
Terence M. Grugan, Timothy D. Katsiff, Brian J. Taylor,
Timothy P. Brennan, Myers Brier & Kelly, LLP, Pennsylvania
Office of Attorney General, Office of Attorney General,
Office of Attorney General Civil Litigation Section, Hangley
Aronchick Segal Pudlin & Schiller, Scott Law Office, Babst,
Calland, Clements and Zomnir, P.C., Ballard Spahr LLP, King
Spry Herman Freund & Faul LLC, Scranton, PA, Harrisburg,
PA, Philadelphia, PA, Pittsburgh, PA, State College, PA,
Bethlehem, PA, Easton, PA, for Defendant.
Jon Greenbaum, Witold J. Walczak, Adriel I. Cepeda Derieux,
Benjamin D. Geffen, Claudia De Palma, Dale E. Ho,
David Meir Zionts, Ezra D. Rosenberg, Ihaab Syed, Marian
K. Schneider, Mary M. McKenzie, Rani Gupta, Sarah E.
Brannon, Shankar Duraiswamy, Sophia Lin Lakin, Lawyers'
Committee for Civil Rights Under Law District Of Columbia,
American Civil Liberties Union of PA, American Civil
Liberties Union Foundation, Inc., Covington & Burling
LLP, Washington, DC, Pittsburgh, PA, New York, NY,
Philadelphia, PA, Palo Alto, CA, for Intervenor/Interpleader
Defendant.
Remy Green, Jonathan Wallace, Sean M. Shultz, Zachary
Michael Wallen, Nancy A. Temple, Richard Bernstein, James
P. DeAngelo, Joshua John Voss, Shohin Vance, Matthew
H. Haverstick, Cohen & Green P.L.L.C., Hanft & Knight,
P.C., Chalmers & Adams LLC, Katten & Temple LLP,
McNees Wallace & Nurick, Kleinbard LLC, Ridgewood, NY,
Amagansett, NY, Carlisle, PA, Pittsburgh, PA, Chicago, IL,
Harrisburg, PA, Philadelphia, PA, for Amicus.
Alex M. Lacey, Ari Holtzblatt, John Michael Geise, Kyle J.
Semroc, Lalitha D. Madduri, Marc E. Elias, Seth Waxman,

Filedto12/07/20
2 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1084 Case

1

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

Uzoma Nkwonta, Witold J. Walczak, Clifford B. Levine,
Robert M. Linn, Dentons Cohen & Grigsby P.C., Wilmer
Cutler Pickering Hale & Dorr LLP, Perkins Coie LLP,
American Civil Liberties Union of PA, Cohen & Grigsby, PC,
Pittsburgh, PA, Washington, DC, for Intervenor.

grant Defendants' motions and dismiss Plaintiffs' action with
prejudice.

Jeffrey Cutler, York, PA, pro se.

A. Legal and Factual Background
The power to regulate and administer federal elections arises

MEMORANDUM OPINION

from the Constitution.3 “Because any state authority to
regulate election to those offices could not precede their very
creation by the Constitution, such power ‘had to be delegated

Matthew W. Brann, United States District Judge
*1 Pending before this Court are various motions to
dismiss Plaintiffs' First Amended Complaint. Plaintiffs in this
matter are Donald J. Trump for President, Inc. (the “Trump
Campaign”), and two voters, John Henry and Lawrence
Roberts (the “Individual Plaintiffs”).1 Defendants, who
filed these motions to dismiss, include seven Pennsylvania
counties (the “Defendant Counties”), as well as Secretary of
the Commonwealth Kathy Boockvar.2
I. INTRODUCTION
In this action, the Trump Campaign and the Individual
Plaintiffs (collectively, the “Plaintiffs”) seek to discard
millions of votes legally cast by Pennsylvanians from
all corners – from Greene County to Pike County, and
everywhere in between. In other words, Plaintiffs ask this
Court to disenfranchise almost seven million voters. This
Court has been unable to find any case in which a plaintiff has
sought such a drastic remedy in the contest of an election, in
terms of the sheer volume of votes asked to be invalidated.
One might expect that when seeking such a startling outcome,
a plaintiff would come formidably armed with compelling
legal arguments and factual proof of rampant corruption, such
that this Court would have no option but to regrettably grant
the proposed injunctive relief despite the impact it would have
on such a large group of citizens.
That has not happened. Instead, this Court has been
presented with strained legal arguments without merit and
speculative accusations, unpled in the operative complaint
and unsupported by evidence. In the United States of
America, this cannot justify the disenfranchisement of a
single voter, let alone all the voters of its sixth most populated
state. Our people, laws, and institutions demand more. At
bottom, Plaintiffs have failed to meet their burden to state
a claim upon which relief may be granted. Therefore, I

II. BACKGROUND

to, rather than reserved to by, the States.’ ”4 Consequently,
the Elections Clause “delegated to the States the power to
regulate the ‘Times, Places, and Manner of holding Elections
for Senators and Representatives,’ subject to a grant of
authority to Congress to ‘make or alter such Regulations.’ ”5
Accordingly, States' power to “regulate the incidents of such
elections, including balloting” is limited to “the exclusive
delegation of power under the Elections Clause.”6
Pennsylvania regulates the “times, places, and manner”
of its elections through the Pennsylvania Election Code.7
The Commonwealth's Constitution mandates that “[e]lections
shall be free and equal; and no power, civil or military, shall
at any time interfere to prevent the free exercise of the right of
suffrage.”8 Recognizing this as a foundational principle, the
Pennsylvania Supreme Court has declared that the purpose of
the Election Code is to promote “freedom of choice, a fair
election and an honest election return.”9
*2 In October 2019, the General Assembly of Pennsylvania
enacted Act 77, which, “for the first time in Pennsylvania,”
extended the opportunity for all registered voters to vote by
mail.10 Following the beginning of the COVID-19 outbreak
in March 2020, the General Assembly enacted laws regulating
the mail-in voting system.11 Section 3150.16 of the Election
Code sets forth procedural requirements that voters must
follow in order for their ballot to be counted.12 These
procedures require, for example, that voters mark their ballots
in pen or pencil, place them in secrecy envelopes, and that
ballots be received by the county elections board on or before
8:00 P.M. on Election Day.13
Nowhere in the Election Code is any reference to “curing”
ballots, or the related practice of “notice-and-cure.” This
practice involves notifying mail-in voters who submitted
procedurally defective mail-in ballots of these deficiencies

Filedto12/07/20
3 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1085 Case

2

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

and allowing those voters to cure their ballots.14 Notified
voters can cure their ballots and have their vote counted by
requesting and submitting a provisional ballot.15
Recently, the Supreme Court of Pennsylvania in Democratic
Party of Pennsylvania v. Boockvar addressed whether
counties are required to adopt a notice-and-cure policy
under the Election Code.16 Holding that they are not, the
court declined to explicitly answer whether such a policy is
necessarily forbidden.17
Following this decision, Secretary Boockvar sent an email
on November 2, 2020 encouraging counties to “provide
information to party and candidate representatives during the
pre-canvass that identifies the voters whose ballots have been
rejected” so those ballots could be cured.18 From the face
of the complaint, it is unclear which counties were sent this
email, which counties received this email, or which counties
ultimately followed Secretary Boockvar's guidance.
Some counties chose to implement a notice-and-cure
procedure while others did not.19 Importantly, however,
Plaintiffs allege only that Philadelphia County implemented
such a policy.20 In contrast, Plaintiffs also claim that
Lancaster and York Counties (as well as others) did not
adopt any cure procedures and thus rejected all ballots cast
with procedural deficiencies instead of issuing these voters
provisional ballots.21
Both Individual Plaintiffs had their ballots cancelled in the
2020 Presidential Election.22 John Henry submitted his mailin ballot to Lancaster County; however, it was cancelled on
November 6, 2020 because he failed to place his ballot in
23

the required secrecy envelope. Similarly, after submitting
his ballot to Fayette County, Lawrence Roberts discovered on
November 9, 2020 that his ballot had been cancelled for an
unknown reason.24 Neither was given an opportunity to cure
his ballot.25
B. The 2020 Election Results
In large part due to the coronavirus pandemic still plaguing
our nation, the rate of mail-in voting in 2020 was expected to
increase dramatically. As anticipated, millions more voted by
mail this year than in past elections. For weeks before Election
Day, ballots were cast and collected. Then, on November
3, 2020, millions more across Pennsylvania and the country

descended upon their local voting precincts and cast ballots
for their preferred candidates. When the votes were counted,
the Democratic Party's candidate for President, Joseph R.
Biden Jr., and his running-mate, Kamala D. Harris, were
determined to have received more votes than the incumbent
ticket, President Donald J. Trump and Vice President Michael
R. Pence. As of the day of this Memorandum Opinion, the
Biden/Harris ticket had received 3,454,444 votes, and the
Trump/Pence ticket had received 3,373,488 votes, giving
the Biden ticket a lead of more than 80,000 votes, per the
Pennsylvania state elections return website.26 These results
will become official when counties certify their results to
Secretary Boockvar on November 23, 2020 – the result
Plaintiffs seek to enjoin with this lawsuit.
C. Procedural History
*3 Although this case was initiated less than two weeks ago,
it has already developed its own tortured procedural history.
Plaintiffs have made multiple attempts at amending the
pleadings, and have had attorneys both appear and withdraw
in a matter of seventy-two hours. There have been at least
two perceived discovery disputes, one oral argument, and a
rude and ill-conceived voicemail which distracted the Court's
attention from the significant issues at hand.27 The Court
finds it helpful to place events in context before proceeding
further.
In the evening of November 9, 2020, Plaintiffs filed suit in
this Court against Secretary Boockvar, as well as the County
Boards of Elections for the following counties: Allegheny,
Centre, Chester, Delaware, Montgomery, Northampton, and
Philadelphia.28 The original complaint raised seven counts;
two equal-protection claims, two due-process claims, and
three claims under the Electors and Elections Clauses.29
The following day, I convened a telephonic status conference
with the parties to schedule future proceedings. During that
conference, I learned that several organizations, including the
Democratic National Committee, sought to file intervention
motions with the Court. Later that day, I set a briefing
schedule.30 Additionally, November 17, 2020 was set aside
for oral argument on any motions to dismiss, and the Court
further told the parties to reserve November 19, 2020 in
their calendars in the event that the Court determined that
an evidentiary hearing was necessary. Subsequent to the
Court's scheduling order, the proposed-intervenors filed their
motions, and the parties filed their briefings. Plaintiffs then

Filedto12/07/20
4 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1086 Case

3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

filed a motion for a preliminary injunction on November 12,
31

2020.

On November 12, 2020, Plaintiffs also underwent their first
change in counsel. Attorneys Ronald L. Hicks, Jr., and
Carolyn B. McGee with Porter Wright Morris & Arthur LLP
filed a motion seeking to withdraw from the case. The Court
granted this motion, and Plaintiffs retained two attorneys from
Texas, John Scott and Douglas Brian Hughes, to serve as cocounsel to their original attorney, Linda A. Kerns.
The next day, November 13, 2020, was a relatively quiet
day on the docket for this case, but an important one for
the parties. That day, the United States Court of Appeals for
the Third Circuit issued a decision in Bognet v. Secretary
Commonwealth of Pennsylvania.32 This decision, though
not factually connected to this matter, addressed issues
of standing and equal protection relevant to the Plaintiffs'
claims.33
Thereafter, on Sunday, November 15, 2020 – the day
Plaintiffs' response to Defendants' motions to dismiss was due
– Plaintiffs filed a First Amended Complaint (the “FAC”)
with the Court. This new complaint excised five of the seven
counts from the original complaint, leaving just two claims:
one equal-protection claim, and one Electors and Elections
Clauses claim.34 In addition, a review of the redline attached
to the FAC shows that Plaintiffs deleted numerous allegations
that were pled in the original complaint.
Plaintiffs acknowledge that under the Third Circuit's decision
in Bognet, this Court cannot find that Plaintiffs have standing
for their Elections and Electors Clauses claim in the FAC.
Plaintiffs represent that they have included this claim in the
FAC to preserve the argument for appellate review. Because
Plaintiffs have made this concession, and because the Third
Circuit's decision in Bognet is clear, this Court dismisses
Count II for lack of standing without further discussion.
*4 Defendants filed new motions to dismiss and briefs in
support thereof on November 16, 2020. That evening, less
than 24 hours before oral argument was to begin, Plaintiffs
instituted a second series of substitutions in counsel. Ms.
Kerns, along with Mr. Scott and Mr. Hughes, requested
this Court's permission to withdraw from the litigation. I
granted the motions of the Texan attorneys because they
had been involved with the case for approximately seventytwo hours. Because oral argument was scheduled for the

following day, however, and because Ms. Kerns had been
one of the original attorneys in this litigation, I denied
her request. I believed it best to have some semblance of
consistency in counsel ahead of the oral argument. That
evening, attorney Marc A. Scaringi entered an appearance
on behalf of Plaintiffs. Furthermore, Mr. Scaringi asked the
Court to postpone the previously-scheduled oral argument
and evidentiary hearing. The Court denied Mr. Scaringi's
motion for a continuance; given the emergency nature of
this proceeding, and the looming deadline for Pennsylvania
counties to certify their election results, postponing those
proceedings seemed imprudent.
On November 17, 2020, the Court prepared to address the
parties in oral argument. That morning, attorney Rudolph
W. Giuliani entered his appearance on behalf of Plaintiffs.
With this last-minute appearance, Plaintiffs had made their
final addition to their representation.35 At the conclusion
of the argument, I determined that an evidentiary hearing
(previously scheduled to take place on November 19, 2020)
was no longer needed and cancelled that proceeding. Instead,
I imposed a new briefing schedule in light of the FAC's filing,
which arguably mooted the initial motions to dismiss. The
parties submitted briefing on the issues.36
D. Plaintiffs' Claims
Plaintiffs' only remaining claim alleges a violation of equal
protection. This claim, like Frankenstein's Monster, has been
haphazardly stitched together from two distinct theories in
an attempt to avoid controlling precedent. The general thrust
of this claim is that it is unconstitutional for Pennsylvania
to give counties discretion to adopt a notice-and-cure policy.
Invoking Bush v. Gore, Plaintiffs assert that such local
control is unconstitutional because it creates an arbitrary
system where some persons are allowed to cure procedurally
defective mail-in ballots while others are not.
Apparently recognizing that such a broad claim is foreclosed
under the Third Circuit's decision in Bognet, Plaintiffs try
to merge it with a much simpler theory of harm based on
the cancellation of Individual Plaintiffs' ballots in order to
satisfy standing.37 Because Individual Plaintiffs' votes were
invalidated as procedurally defective, Individual Plaintiffs
argue, for purposes of standing, that their claim is based on
the denial of their votes. But on the merits, Plaintiffs appear
to have abandoned this theory of harm and instead raise
their broader argument that the lack of a uniform prohibition
against notice-and-cure is unconstitutional.38 They assert this

Filedto12/07/20
5 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1087 Case

4

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

theory on behalf of both Individual Plaintiffs and the Trump
Campaign.
*5 That Plaintiffs are trying to mix-and-match claims to
bypass contrary precedent is not lost on the Court. The Court
will thus analyze Plaintiffs' claims as if they had been raised
properly and asserted as one whole for purposes of standing
and the merits. Accordingly, the Court considers Plaintiffs
as alleging two equal-protection claims. The first being on
behalf of Individual Plaintiffs whose ballots were cancelled.
And the second being on behalf of the Trump Campaign and
raising the broad Bush v. Gore arguments that Plaintiffs allege
is the main focus of this lawsuit.39 The Court analyzes both
claims separately for purposes of standing and the merits
analysis.
III. STANDING
Plaintiffs lack standing to raise either of their claims. “Article
III of the United States Constitution limits the power of
the federal judiciary to ‘cases’ and ‘controversies.’ ”40 To
satisfy the case-or-controversy requirement, a plaintiff must
establish that they have standing.41 Standing is a “threshold”
issue.42 It is an “irreducible constitutional minimum,”
without which a federal court lacks jurisdiction to rule on
the merits of an action.43 Consequently, federal courts are
obligated to raise the issue of standing sua sponte.44
The plaintiff bears the burden of establishing standing.45
To demonstrate standing, he must show: (1) an injury in
fact, (2) that is fairly traceable to the challenged conduct
of the defendant, and (3) that is likely to be redressed by a
46

favorable judicial decision. “In assessing whether a plaintiff
has carried this burden, [courts must] separate [the] standing
inquiry from any assessment of the merits of the plaintiff's
claim.”47 “To maintain this fundamental separation between
standing and merits at the dismissal stage, [courts] assume for
the purposes of [the] standing inquiry that a plaintiff has stated
valid legal claims.”48 “While [the Court's] standing inquiry
may necessarily reference the ‘nature and source of the claims
asserted,’ [the Court's] focus remains on whether the plaintiff

use of the notice-and-cure procedure, as well as Secretary
Boockvar's authorization of this procedure, denied Individual
Plaintiffs the right to vote.50 Second, the Trump Campaign
maintains that it has competitive standing.51
*6 Both theories are unavailing. Assuming, as this Court
must, that Plaintiffs state a valid equal-protection claim,
the Court finds that Individual Plaintiffs have adequately
established an injury-in-fact. However, they fail to establish
that it was Defendants who caused these injuries and that
their purported injury of vote-denial is adequately redressed
by invalidating the votes of others. The Trump Campaign's
theory also fails because neither competitive nor associational
standing applies, and it does not assert another cognizable
theory of standing.
A. Voters
1. Injury in Fact
Individual Plaintiffs have adequately demonstrated that they
suffered an injury-in-fact. “[A] person's right to vote is
‘individual and personal in nature.’ ”52 Accordingly, the
denial of a person's right to vote is typically always
sufficiently concrete and particularized to establish a
cognizable injury.53 This is true regardless of whether such
a harm is widely shared.54 So long as an injury is concrete,
courts will find that an injury in fact exists despite the fact that
such harm is felt by many.55
This is precisely the situation presented here. Individual
Plaintiffs have adequately pled that their votes were denied.
As discussed above, the denial of a vote is a highly personal
and concrete injury. That Individual Plaintiffs had their ballots
cancelled and thus invalidated is sufficiently personal to
establish an injury in fact. It is of no matter that many persons
across the state might also have had their votes invalidated
due to their county's failure to implement a curing procedure.
Accordingly, the Court finds that Individual Plaintiffs have
established injury in fact.

is the proper party to bring those claims.”49
As discussed above, Plaintiffs allege two possible theories
of standing. First, Individual Plaintiffs argue that their votes
have been unconstitutionally denied. Under this theory,
Individual Plaintiffs must show that Defendant Counties'

2. Causation
However, Individual Plaintiffs fail to establish that Defendant
Counties or Secretary Boockvar actually caused their injuries.
First, Defendant Counties, by Plaintiffs' own pleadings, had

Filedto12/07/20
6 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1088 Case

5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

nothing to do with the denial of Individual Plaintiffs' ability to
vote. Individual Plaintiffs' ballots were rejected by Lancaster
and Fayette Counties, neither of which is a party to this case.
None of Defendant Counties received, reviewed, or discarded
Individual Plaintiffs' ballots. Even assuming that Defendant
Counties unconstitutionally allowed other voters to cure their
ballots, that alone cannot confer standing on Plaintiffs who
seek to challenge the denial of their votes.
Second, Individual Plaintiffs have not shown that their
purported injuries are fairly traceable to Secretary Boockvar.
Individual Plaintiffs have entirely failed to establish any
causal relationship between Secretary Boockvar and the
cancellation of their votes. The only connection the Individual
Plaintiffs even attempt to draw is that Secretary Boockvar
sent an email on November 2, 2020 to some number of
counties, encouraging them to adopt a notice-and-cure policy.
However, they fail to allege which counties received this
email or what information was specifically included therein.
Further, that this email encouraged counties to adopt a noticeand-cure policy does not suggest in any way that Secretary
Boockvar intended or desired Individual Plaintiffs' votes to be
cancelled. To the contrary, this email suggests that Secretary
Boockvar encouraged counties to allow exactly these types of
votes to be counted. Without more, this Court cannot conclude
that Individual Plaintiffs have sufficiently established that
56

their injuries are fairly traceable to Secretary Boockvar.

3. Redressability
*7 In large part because the Individual Plaintiffs cannot
establish that their injury is “fairly traceable” to the
Defendants' conduct, they also cannot show that their injury
could be redressed by a favorable decision from this Court.57
Beyond that substantial hurdle, however, a review of the
injury alleged and the relief sought plainly shows that the
Individual Plaintiffs' injury would not be redressable. The
Individual Plaintiffs base their equal-protection claim on
the theory that their right to vote was denied. Their prayer
for relief seeks, in pertinent part: (1) an order, declaration,
or injunction from this Court prohibiting the Defendants
from certifying the results of the 2020 General Election
in Pennsylvania on a Commonwealth-wide basis; and (2)
another order prohibiting Defendants from certifying the
results which include ballots the Defendants permitted to be
cured.

Neither of these orders would redress the injury the
Individual Plaintiffs allege they have suffered. Prohibiting
certification of the election results would not reinstate the
Individual Plaintiffs' right to vote. It would simply deny
more than 6.8 million people their right to vote. “Standing
is measured based on the theory of harm and the specific
relief requested.”58 It is not “dispensed in gross: A plaintiff's
remedy must be tailored to redress the plaintiff's particular
injury.”59 Here, the answer to invalidated ballots is not to
invalidate millions more. Accordingly, Plaintiffs have not
shown that their injury would be redressed by the relief
sought.
B. Trump Campaign
The standing inquiry as to the Trump Campaign is particularly
nebulous because neither in the FAC nor in its briefing does
the Trump Campaign clearly assert what its alleged injury is.
Instead, the Court was required to embark on an extensive
project of examining almost every case cited to by Plaintiffs
to piece together the theory of standing as to this Plaintiff –
the Trump Campaign.
The Trump Campaign first posits that “as a political
committee for a federal candidate,” it has “Article III standing
to bring this action.”60 On its face, this claim is incorrect.
Simply being a political committee does not obviate the need
for an injury-in-fact, nor does it automatically satisfy the other
two elements of standing.
For this proposition, the Trump Campaign relies on two
federal cases where courts found associational standing
by a political party's state committee. Therefore, the
Court considers whether the Trump Campaign can raise
associational standing, but finds that those cases are
inapposite.61 First, a candidate's political committee and a
political party's state committee are not the same thing.
Second, while the doctrine of associational standing is well
established, the Trump Campaign overlooks a particularly
relevant, very recent decision from another federal court –
one where the Trump Campaign itself argued that it had
associational standing. In Donald J. Trump for President, Inc.
v. Cegavske,62 the Trump Campaign asserted associational
standing, and that court rejected this theory.
Associational standing allows an entity to bring suit on behalf
of members upon a showing that: (1) “its members would
otherwise have standing to sue in their own right;” (2) “the

Filedto12/07/20
7 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1089 Case

6

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

interests it seeks to protect are germane to the organization's
purpose;” and (3) “neither the claim asserted nor the relief
requested requires the participation of individual members in
the lawsuit.”63
*8 In Cegavske (another case in which the Trump Campaign
alleged violations of equal protection), the court found
that the Trump Campaign failed to satisfy the second
prong of associational standing because it “represents only
Donald J. Trump and his ‘electoral and political goals’
64

of reelection.” That court noted that while the Trump
Campaign might achieve its purposes through its member
voters, the “constitutional interests of those voters are wholly
distinct” from that of the Trump Campaign.65 No different
here. Even if the Individual Plaintiffs attempted to vote for
President Trump, their constitutional interests are different,
precluding a finding of associational standing. In any event,
because the Individual Plaintiffs lack standing in this case,
the Trump Campaign cannot satisfy the first prong of
associational standing either.
The Trump Campaign's second theory is that it has “
‘competitive standing’ based upon disparate state action
leading to the ‘potential loss of an election.’ ”66 Pointing to
a case from the United States Court of Appeals for the Ninth
Circuit, Drake v. Obama,67 the Trump Campaign claims this
theory proves injury-in-fact. First, the Court finds it important
to emphasize that the term “competitive standing” has specific
meaning in this context. Second, the Trump Campaign's
reliance on the theory of competitive standing under Drake
v. Obama is, at best, misguided. Subsequent case law from
the Ninth Circuit has explained that competitive standing “is
the notion that ‘a candidate or his political party has standing
to challenge the inclusion of an allegedly ineligible rival on
the ballot, on the theory that doing so hurts the candidate's
or party's own chances of prevailing in the election.’ ”68 In
the present matter, there is no allegation that the Democratic
Party's candidate for President, or any other candidate, was
ineligible to appear on the ballot.

Appeals for the Second Circuit found competitive standing
where the Conservative party alleged an injury in fact
by arguing that a candidate from the Libertarian Party of
New York was improperly placed on the ballot for the
Governor's race in 1994.70 By way of yet another example,
Plaintiffs' citation to Fulani v. Hogsett makes the same point;
competitive standing applies to challenges regarding the
eligibility of a candidate. There, the Indiana Secretary of State
was required to certify the names of candidates for President
by a certain date.71 When the Secretary failed to certify the
Democratic and Republican candidates by that date, the New
Alliance party challenged the inclusion of those candidates on
the ballot, arguing that allowing these ineligible candidates
constituted an injury-in-fact.72 Three other cases relied on by
Plaintiffs illustrate separate grounds for stating an injury in
fact, all still relating to ballot provisions.73
*9 It is telling that the only case from the Third Circuit
cited to by Plaintiffs, Marks v. Stinson, does not contain a
discussion of competitive standing or any other theory of
standing applicable in federal court.74 Simply pointing to
another case where a competitor in an election was found
to have standing does not establish competitive standing in
this matter. Without more, this Court declines to take such
an expansive view of the theory of competitive standing,
particularly given the abundance of guidance from other
Circuits, based on Plaintiffs' own citations, limiting the use of
this doctrine.
The Trump Campaign has not offered another theory of
standing, and therefore, cannot meet its burden of establishing
Article III jurisdiction. To be clear, this Court is not holding
that a political campaign can never establish standing to
challenge the outcome of an election; rather, it merely finds
that in this case, the Trump Campaign has not pled a
cognizable theory.75
IV. MOTION TO DISMISS 12(b)(6)
A. Legal Standard
Under Federal Rule of Civil Procedure 12(b)(6), the Court
dismisses a complaint, in whole or in part, if the plaintiff has
failed to “state a claim upon which relief can be granted.” A

Examination of the other case law cited to by Plaintiffs
contradicts their theory that competitive standing is applicable
here for the same reason. For example, in Texas Democratic
Party v. Benkiser, the United States Court of Appeals for
the Fifth Circuit found competitive standing in a case in
which the Democratic Party petitioned against the decision to

motion to dismiss “tests the legal sufficiency of a claim”76 and
“streamlines litigation by dispensing with needless discovery

deem a candidate ineligible and replace him with another.69
Likewise, in Schulz v. Williams, the United States Court of

dismiss a claim on the basis of a dispositive issue of law.”78

and factfinding.”77 “Rule 12(b)(6) authorizes a court to

Filedto12/07/20
8 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1090 Case

7

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

This is true of any claim, “without regard to whether it is based
on an outlandish legal theory or on a close but ultimately
unavailing one.”79
Following the Roberts Court's “civil procedure revival,”80
the landmark decisions of Bell Atlantic Corporation v.
Twombly81 and Ashcroft v. Iqbal82 tightened the standard that
district courts must apply to 12(b)(6) motions.83 These cases
“retired” the lenient “no-set-of-facts test” set forth in Conley
v. Gibson and replaced it with a more exacting “plausibility”

Under the pleading regime established by Twombly and
Iqbal, a court reviewing the sufficiency of a complaint
must take three steps. First, it must tak[e] note of the
elements [the] plaintiff must plead to state a claim. Second,
it should identify allegations that, because they are no
more than conclusions, are not entitled to the assumption
of truth. Finally, [w]hen there are well-pleaded factual
allegations, [the] court should assume their veracity and
then determine whether they plausibly give rise to an
entitlement to relief.94

standard.84
Accordingly, after Twombly and Iqbal, “[t]o survive a motion
to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible
on its face.’ ”85 “A claim has facial plausibility when
the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable
for the misconduct alleged.”86 “Although the plausibility
standard does not impose a probability requirement, it does
require a pleading to show more than a sheer possibility
that a defendant has acted unlawfully.”87 Moreover, “[a]sking
for plausible grounds ... calls for enough facts to raise a
reasonable expectation that discovery will reveal evidence of
[wrongdoing].”88
*10 The plausibility determination is “a context-specific
task that requires the reviewing court to draw on its judicial
experience and common sense.”89 No matter the context,
however, “[w]here a complaint pleads facts that are ‘merely
consistent with’ a defendant's liability, it ‘stops short of the
line between possibility and plausibility of entitlement to
relief.’ ”90
When disposing of a motion to dismiss, the Court “accept[s]
as true all factual allegations in the complaint and draw[s] all
inferences from the facts alleged in the light most favorable
to [the plaintiff].”91 However, “the tenet that a court must
accept as true all of the allegations contained in the complaint
is inapplicable to legal conclusions.”92 “Threadbare recitals
of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.”93
As a matter of procedure, the Third Circuit has instructed that:

B. Equal Protection
Even if Plaintiffs had standing, they fail to state an
equal-protection claim. The Equal Protection Clause of the
Fourteenth Amendment commands that no state shall “deny
to any person within its jurisdiction the equal protection of
the laws.”95 The principle of equal protection is fundamental
to our legal system because, at its core, it protects the People
from arbitrary discrimination at the hands of the State.
But, contrary to Plaintiffs' assertions, not all “unequal
treatment” requires Court intervention.96 The Equal
Protection Clause “does not forbid classifications.”97 It
simply keeps governmental decisionmakers from treating
similarly situated persons differently.98 The government
could not function if complete equality were required in
all situations. Consequently, a classification resulting in
“some inequality” will be upheld unless it is based on an
inherently suspect characteristic or “jeopardizes the exercise
of a fundamental right.”99
One such fundamental right, at issue in this case, is the right to
vote. Voting is one of the foundational building blocks of our
democratic society, and that the Constitution firmly protects
this right is “indelibly clear.”100 All citizens of the United
States have a constitutionally protected right to vote.101 And
all citizens have a constitutionally protected right to have their
votes counted.102
*11 With these background principles firmly rooted, the
Court turns to the merits of Plaintiffs' equal-protection claims.
The general gist of their claims is that Secretary Boockvar,
by failing to prohibit counties from implementing a noticeand-cure policy, and Defendant Counties, by adopting such
a policy, have created a “standardless” system and thus
unconstitutionally discriminated against Individual Plaintiffs.

Filedto12/07/20
9 of 17Works.
Document 55-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1091 Case

8

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

Though Plaintiffs do not articulate why, they also assert that
this has unconstitutionally discriminated against the Trump
Campaign.
As discussed above, the Court will address Individual
Plaintiffs' and the Trump Campaign's claims separately.
Because Individual Plaintiffs premised standing on the
purported wrongful cancellation of their votes, the Court
will only analyze whether Defendants have impermissibly
burdened Individual Plaintiffs' ability to vote. Further, the
Court will consider two issues raised by the Trump Campaign;
the first being whether it has stated a valid claim alleging
discrimination relating to its use of poll-watchers, and the
second being whether the General Assembly's failure to
uniformly prohibit (or permit) the notice-and-cure procedure
is unconstitutional.

imposes no burden on the ‘right to vote’ at all, true rational
basis review applies.”111
*12 Here, because Defendants' conduct “imposes no
burden” on Individual Plaintiffs' right to vote, their equalprotection claim is subject to rational basis review.112
Defendant Counties, by implementing a notice-and-cure
procedure, have in fact lifted a burden on the right to vote,
even if only for those who live in those counties. Expanding
the right to vote for some residents of a state does not burden
the rights of others.113 And Plaintiffs' claim cannot stand to
the extent that it complains that “the state is not imposing a
restriction on someone else's right to vote.”114 Accordingly,
Defendant Counties' use of the notice-and-cure procedure (as
well as Secretary Boockvar's authorization of this procedure)
will be upheld unless it has no rational basis.115

1. Individual Plaintiffs
States have “broad authority to regulate the conduct of
elections, including federal ones.”103 “This authority includes
‘broad powers to determine the conditions under which the
right of suffrage may be exercised.’ ”104 Because states
must have freedom to regulate elections if “some sort of
order, rather than chaos, is to accompany the democratic
processes,”105 such regulation is generally insulated from the
stringent requirements of strict scrutiny.106
Instead, state regulation that burdens voting rights is normally
subject to the Anderson-Burdick balancing test, which
requires that a court “weigh the asserted injury to the
right to vote against the ‘precise interests put forward by
the State as justifications for the burden imposed by its
rule.’ ”107 Under this test, “any ‘law respecting the right
to vote – whether it governs voter qualifications, candidate
selection, or the voting process,’ is subjected to ‘a deferential
“important regulatory interests” standard for nonsevere,
nondiscriminatory restrictions, reserving strict scrutiny for
laws that severely restrict the right to vote.’ ”108
The Anderson-Burdick balancing test operates on a sliding
scale.109 Thus, more restrictive laws are subject to
greater scrutiny. Conversely, “minimally burdensome and
nondiscriminatory” regulations are subject to “a level of

Individual Plaintiffs' claims fail because it is perfectly rational
for a state to provide counties discretion to notify voters that
they may cure procedurally defective mail-in ballots. Though
states may not discriminatorily sanction procedures that are
likely to burden some persons' right to vote more than others,
they need not expand the right to vote in perfect uniformity.
All Plaintiffs have alleged is that Secretary Boockvar allowed
counties to choose whether or not they wished to use the
notice-and-cure procedure. No county was forced to adopt
notice-and-cure; each county made a choice to do so, or
not. Because it is not irrational or arbitrary for a state to
allow counties to expand the right to vote if they so choose,
Individual Plaintiffs fail to state an equal-protection claim.
Moreover, even if they could state a valid claim, the Court
could not grant Plaintiffs the relief they seek. Crucially,
Plaintiffs fail to understand the relationship between right and
remedy. Though every injury must have its proper redress,116
a court may not prescribe a remedy unhinged from the
underlying right being asserted.117 By seeking injunctive
relief preventing certification of the Pennsylvania election
results, Plaintiffs ask this Court to do exactly that. Even
assuming that they can establish that their right to vote has
been denied, which they cannot, Plaintiffs seek to remedy
the denial of their votes by invalidating the votes of millions
of others. Rather than requesting that their votes be counted,
they seek to discredit scores of other votes, but only for one
race.118 This is simply not how the Constitution works.

scrutiny ‘closer to rational basis.’ ”110 “And where the state

2:20-cv-01771-PP
12/07/20
Page
10 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1092 Case

9

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

When remedying an equal-protection violation, a court may
119

either “level up” or “level down.” This means that a court
may either extend a benefit to one that has been wrongfully
denied it, thus leveling up and bringing that person on par with
others who already enjoy the right,120 or a court may level
down by withdrawing the benefit from those who currently
possess it.121 Generally, “the preferred rule in a typical case
is to extend favorable treatment” and to level up.122 In fact,
leveling down is impermissible where the withdrawal of a
benefit would necessarily violate the Constitution.123 Such
would be the case if a court were to remedy discrimination by
striking down a benefit that is constitutionally guaranteed.
*13 Here, leveling up to address the alleged cancellation
of Plaintiffs' votes would be easy; the simple answer is that
their votes would be counted. But Plaintiffs do not ask to
level up. Rather, they seek to level down, and in doing so,
they ask the Court to violate the rights of over 6.8 million
Americans. It is not in the power of this Court to violate the
Constitution.124 “The disenfranchisement of even one person
validly exercising his right to vote is an extremely serious
matter.”125 “To the extent that a citizen's right to vote is
126

debased, he is that much less a citizen.”

Granting Plaintiffs' requested relief would necessarily require
invalidating the ballots of every person who voted in
Pennsylvania. Because this Court has no authority to take
away the right to vote of even a single person, let alone
millions of citizens, it cannot grant Plaintiffs' requested relief.

2. Trump Campaign
Plaintiffs' brief in opposition to the motions to dismiss
spends only one paragraph discussing the merits of its equalprotection claim. Plaintiffs raise two arguments as to how
equal protection was violated. The first is that “Defendants
excluded Republican/Trump observers from the canvass so
that they would not observe election law violations.”127 The
second claims that the “use of notice/cure procedures violated
equal protection because it was deliberately done in counties
where defendants knew that mail ballots would favor Biden/

Instead, Count I discusses the use of “standardless”
procedures. These are two separate theories of an equal
protection violation. That deficiency aside, to the extent this
new theory is even pled, Plaintiffs fail to plausibly plead that
there was “uneven treatment” of Trump and Biden watchers
and representatives. Paragraphs 132-143 of the FAC are
devoted to this alleged disparity. None of these paragraphs
support Plaintiffs' argument. A selection below:
•

“Defendants

have

not

allowed

watchers

and

129

representatives to be present ...”

• “In Centre County, the central pre-canvassing location
was a large ballroom. The set-up was such that the poll
watchers did not have meaningful access to observe
the canvassing and tabulation process of mail-in and
absentee ballots, and in fact, the poll watchers and
observers who were present could not actually observe
the ballots such that they could confirm or object to the
validity of the ballots.”130
• “In Philadelphia County, poll watchers and canvass
representatives were denied access altogether in some
instances.”131
• “In Delaware County, observers were denied access to a
back room counting area ...”132
None of these allegations (or the others in this section) claim
that the Trump Campaign's watchers were treated differently
than the Biden campaign's watchers. Simply alleging that poll
watchers did not have access or were denied access to some
areas does not plausibly plead unequal treatment. Without
actually alleging that one group was treated differently than
another, Plaintiffs' first argument falls flat.
*14 Likewise, Plaintiffs cannot salvage their notice-andcure theory by invoking Bush v. Gore.133 Plaintiffs claim
that the Equal Protection clause “imposes a ‘minimum
requirement for nonarbitrary treatment of voters’ and forbids
voting systems and practices that distribute resources in
‘standardless’ fashion, without ‘specific rules designed to

Democrats.”128 The former finds no support in the operative
pleading, and neither states an equal-protection violation.

ensure uniform treatment.’ ”134 Plaintiffs attempt to craft
a legal theory from Bush, but they fail because: (1) they
misapprehend the issues at play in that case; and (2) the facts
of this case are distinguishable.

Count I of the FAC makes no mention of disparity in treatment
of observers based on which campaign they represented.

Plaintiffs' interpretation of Bush v. Gore would broaden the
application of that case far beyond what the Supreme Court

2:20-cv-01771-PP
12/07/20
Page
11 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1093 Case

10

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

of the United States endorsed. In Bush, the Supreme Court
stopped a recount of votes in Florida in the aftermath of
the 2000 Presidential Election. Despite Plaintiffs' assertions,
Bush does not stand for the proposition that every rule or
system must ensure uniform treatment. In fact, the Supreme
Court explicitly said so, explaining: “[t]he question before the
Court is not whether local entities, in the exercise of their
expertise, may develop different systems for implementing
elections.”135 Instead, the Court explained that its holding
concerned a “situation where a state court with the power
to assure uniformity has ordered a statewide recount with
minimal procedural safeguards.”136 Where a state court
has ordered such a remedy, the Supreme Court held that
“there must be at least some assurance that the rudimentary
requirements of equal treatment and fundamental fairness are
satisfied.”137 In other words, the lack of guidance from a court
constituted an equal-protection violation.
In the instant matter, Plaintiffs are not challenging any
court action as a violation of equal protection, and they
do not allege that Secretary Boockvar's guidance differed
from county to county, or that Secretary Boockvar told some
counties to cure ballots and others not to. That some counties
may have chosen to implement the guidance (or not), or
to implement it differently, does not constitute an equalprotection violation. “[M]any courts that have recognized
that counties may, consistent with equal protection, employ
entirely different election procedures and voting systems
within a single state.”138 “Arguable differences in how
elections boards apply uniform statewide standards to the
innumerable permutations of ballot irregularities, although
perhaps unfortunate, are to be expected, just as judges in
sentencing-guidelines cases apply uniform standards with
139

arguably different results.”
Requiring that every single
county administer elections in exactly the same way would
impose untenable burdens on counties, whether because
of population, resources, or a myriad of other reasonable
considerations.
V. CONCLUSION
Defendants' motions to dismiss the First Amended Complaint
are granted with prejudice. Leave to amend is denied.
“Among the grounds that could justify a denial of leave
to amend are undue delay, bad faith, dilatory motive,

prejudice, and futility.”140 Given that: (1) Plaintiffs have
already amended once as of right; (2) Plaintiffs seek to
amend simply in order to effectively reinstate their initial
complaint and claims; and (3) the deadline for counties in
Pennsylvania to certify their election results to Secretary
Boockvar is November 23, 2020, amendment would unduly
delay resolution of the issues. This is especially true because
the Court would need to implement a new briefing schedule,
conduct a second oral argument, and then decide the issues.
*15 An appropriate Order follows.

ORDER
AND NOW, this 21st day of November 2020, in accordance
with the accompanying Memorandum Opinion, IT IS
HEREBY ORDERED that:
1. Defendants' motions to dismiss the First Amended
Complaint (Docs. 127, 135, 140, 145, 161, and 165)
are GRANTED WITH PREJUDICE. NO LEAVE TO
AMEND IS GRANTED.
2. Defendants' motions to dismiss the original complaint
(Docs. 81, 85, 90, 92, 96, and 98) are DENIED AS
MOOT.
3. Plaintiffs' motion for leave to file a second amended
complaint (Doc. 172) is DENIED AS MOOT.
4. Plaintiffs' motions for preliminary injunction (Docs. 89
and 182) are DENIED AS MOOT.
5. Plaintiffs' motions regarding discovery (Docs. 118 and
171) are DENIED AS MOOT.
6. Further motions regarding amicus briefing and
intervention (Docs. 166, 180, and 200) are DENIED AS
MOOT.
7. The case is dismissed and the Clerk of Court is directed
to close the case file.
All Citations
--- F.Supp.3d ----, 2020 WL 6821992

Footnotes

2:20-cv-01771-PP
12/07/20
Page
12 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1094 Case

11

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36

37

Doc. 125.
Id. Since the filing of the initial complaint, there have also been several intervenors and amicus petitioners.
Cook v. Gralike, 531 U.S. 510, 522, 121 S.Ct. 1029, 149 L.Ed.2d 44 (2001).
Id. (quoting U.S. Term Limits v. Thornton, 514 U.S. 779, 804, 115 S.Ct. 1842, 131 L.Ed.2d 881 (1995)).
Id. (quoting U.S. Const. Art. I, § 4, cl. 1).
Id. at 523, 121 S.Ct. 1029.
25 P.S. §§ 2601, et seq.
Pa. Democratic Party v. Boockvar, ––– Pa. ––––, 238 A.3d 345, 356 (2020) (quoting Pa. Const., Art. I, § 5).
Id. (quoting Perles v. Hoffman, 419 Pa. 400, 213 A.2d 781, 783 (1965)).
Id. at 352 (citing 25 P.S. §§ 3150.11-3150.17). Prior to the enactment of Act 77, voters were only permitted to vote by
mail if they could “demonstrate their absence from the voting district on Election Day.” Id. (internal citations omitted).
E.g., 25 P.S. § 3150.16.
Id.
Id.
Pa. Democratic Party, 238 A.3d at 372.
Doc. 93 at 9.
Pa. Democratic Party, 238 A.3d at 374.
Id. (holding only that the Election Code “does not provide for the ‘notice and opportunity to cure’ procedure sought by
Petitioner”).
Doc. 125 at ¶ 129.
Id. at ¶¶ 124-27.
Id. at ¶ 127.
Id. at ¶ 130.
Id. at ¶¶ 15-16.
Id. at ¶ 15.
Id. at ¶ 16.
Id. at ¶¶ 15-16.
Pa. Dep't of State, Unofficial Returns, Statewide, https://www.electionreturns.pa.gov/ (last visited on November 21, 2020).
Doc. 131 (denied).
See Doc. 1.
Id.
See Doc. 35.
Doc. 89.
No. 20-3214, ––– F.3d ––––, 2020 WL 6686120 (3d Cir. Nov. 13, 2020) (pending publication).
For example, Bognet held that only the General Assembly had standing to raise claims under the Elections and Electors
Clauses. Id. at ––––, 2020 WL 6686120, at *7. This ruling effectively shut the door on Plaintiffs' allegations under those
clauses of the Constitution.
Doc. 125.
Ms. Kerns has since withdrawn from the case.
Separately, Plaintiffs filed a motion seeking leave to file a second amended complaint. Doc. 172. Having filed the FAC
as of right, Plaintiffs may file a second amended complaint only with the opposing party's written consent or the court's
leave. During the oral argument on November 17, 2020, Defendants indicated that they would not consent to the filing of
a third pleading and did not concur in the motion for leave to file this second amended complaint.
Plaintiffs initially appeared to base their standing under the Equal Protection Clause on the theory that the notice-andcure policy unlawfully allowed certain ballots to be counted, and that this inclusion of illegal ballots diluted Plaintiffs' legal
votes. Doc. 1. After Bognet expressly rejected this theory of standing, however, Plaintiffs have since reversed course
and now argue that their standing is based on the cancellation of Individual Plaintiffs' votes and the Trump Campaign's
“competitive standing.” ––– F.3d at –––– – ––––, 2020 WL 6686120, at *9-10; Doc. 124 at 2. To the extent that Plaintiffs
may still argue that votes have been unconstitutionally diluted (see, FAC ¶ 97), those claims are barred by the Third
Circuit's decision in Bognet.

2:20-cv-01771-PP
12/07/20
Page
13 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1095 Case

12

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

38
39
40
41
42
43
44
45
46
47
48
49
50

51
52
53

54
55
56

57
58
59
60

Plaintiffs essentially conceded that they were only setting forth the vote-denial theory for purposes of standing when
they stated on the record at oral argument that they believed Individual Plaintiffs' votes were lawfully cancelled. Hr'g.
Tr. 110:22-111:02.
In briefing, Plaintiffs attempt to revive their previously-dismissed poll-watcher claims. Count I does not seek relief for
those allegations, but the Court considers them, infra.
Pa. Voters All. v. Centre Cnty., No. 4:20-CV-01761, ––– F.Supp.3d ––––, ––––, 2020 WL 6158309, at *3 (M.D. Pa. Oct.
21, 2020) (quoting Cottrell v. Alcon Laboratories, 874 F.3d 154, 161-62 (3d Cir. 2017)).
Cottrell, 874 F.3d at 161-62.
Wayne Land & Mineral Grp., LLC v. Del. River Basin Comm'n, 959 F.3d 569, 573-74 (3d Cir. 2020) (internal citations
omitted).
Id. at 574 (quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992)).
Id. (quoting Seneca Reservation Corp. v. Twp. of Highland, 863 F.3d 245, 252 (3d Cir. 2017).
Cottrell, 874 F.3d at 162 (quoting Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547, 194 L.Ed.2d 635 (2016)).
Id. (quoting Spokeo, 136 S. Ct. at 1547).
Id.
Id. (citing Info. Handling Servs., Inc. v. Defense Automated Printing Servs., 338 F.3d 1024, 1029 (D.C. Cir. 2003)).
Id. (brackets and internal citations omitted).
As discussed above, to the extent that Plaintiffs would have premised standing on the theory that Pennsylvania's
purportedly unconstitutional failure to uniformly prohibit the notice-and-cure procedure constitutes vote-dilution, such an
assertion would be foreclosed under Bognet, ––– F.3d at –––– – ––––, 2020 WL 6686120, at *9-10. Accordingly, the
Court will only consider whether Individual Plaintiffs have standing under their vote-denial theory.
In the interest of comprehensiveness, the Court also addresses whether the Trump Campaign has associational standing.
Gill v. Whitford, ––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d 313 (2018) (quoting Reynolds v. Sims, 377 U.S. 533,
561, 84 S.Ct. 1362, 12 L.Ed.2d 506 (1964)).
See Gomillion v. Lightfoot, 364 U.S. 339, 349, 81 S.Ct. 125, 5 L.Ed.2d 110 (1960) (Whittaker, J.) (noting the distinction
between injuries caused by outright denial of the right to vote versus those caused by reducing the weight or power of an
individual's vote). The Court notes that much of standing doctrine as it relates to voting rights arises from gerrymandering
or vote-dilution cases, which often involve relatively abstract harms. See, e.g., Gill, 138 S. Ct. at 1929; Gaffney v.
Cummings, 412 U.S. 735, 93 S.Ct. 2321, 37 L.Ed.2d 298 (1973); Reynolds v. Sims, 377 U.S. 533, 84 S.Ct. 1362, 12
L.Ed.2d 506 (1964)).
See Federal Election Comm'n v. Akins, 524 U.S. 11, 24, 118 S.Ct. 1777, 141 L.Ed.2d 10 (1998) (citing Public Citizen v.
U.S. Dep't of Justice, 491 U.S. 440, 449-50, 109 S.Ct. 2558, 105 L.Ed.2d 377 (1989)).
See id. (“[W]here a harm is concrete, though widely shared, the [United States Supreme] Court has found ‘injury in fact.’
”) (quoting Public Citizen, 491 U.S. at 449-50, 109 S.Ct. 2558).
The Third Circuit has held that a party may have standing “to challenge government action that permits or authorizes
third-party conduct that would otherwise be illegal in the absence of the Government's action.” Constitution Party of
Pennsylvania v. Aichele, 757 F.3d 347, 366 (3d Cir. 2014) (quoting Bloomberg L.P. v. CFTC, 949 F. Supp. 2d 91, 116
(D.D.C. 2013)). But in that case, standing was permitted to avoid a catch-22 situation where, absent standing against a
third-party government actor, a plaintiff would not be able to bring suit against any responsible party. Id. at 367. Here,
Plaintiffs allege that Secretary Boockvar is responsible for authorizing the unconstitutional actions of Defendant Counties.
However, unlike the plaintiffs in Aichele, Plaintiffs are able to sue Defendant Counties for their allegedly unconstitutional
actions. Moreover, because this Court has already concluded that Plaintiffs lack standing to sue Defendant Counties for
their use of the notice-and-cure policy, it would be counterintuitive for Plaintiffs to have standing to challenge Secretary
Boockvar's authorization of this policy, which is even further removed from any purported harm that Individual Plaintiffs
have suffered.
See, e.g., Newdow v. Roberts, 603 F.3d 1002, 1011 (D.C. Cir. 2010) (noting that when an injury is caused by a third party
not before the Court, courts cannot “redress injury ... that results from [such] independent action.”) (ellipses and alterations
in original) (quoting Simon v. E. Ky. Welfare Rights Org., 426 U.S. 26, 41-42, 96 S.Ct. 1917, 48 L.Ed.2d 450 (1976)).
Donald J. Trump for President, Inc. v. Boockvar, No. 2:20-CV-966, ––– F.Supp.3d ––––, ––––, 2020 WL 5997680, at
*37 (W.D. Pa. Oct. 10, 2020) (citing Gill, 138 S. Ct. at 1934).
Gill, 138 S. Ct. at 1934 (citing DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 353, 126 S.Ct. 1854, 164 L.Ed.2d 589 (2006)).
Doc. 170 at 11.

2:20-cv-01771-PP
12/07/20
Page
14 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1096 Case

13

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

61
62
63
64
65
66
67
68
69
70
71
72
73

74
75
76
77
78
79
80
81
82
83
84
85
86
87
88
89
90
91
92
93
94
95
96
97
98
99

Texas Democratic Party v. Benkiser, 459 F.3d 582 (5th Cir. 2006); Orloski v. Davis, 564 F. Supp. 526 (M.D. Pa. 1983).
No. 2:20-CV-1445, ––– F.Supp.3d ––––, 2020 WL 5626974 (D. Nev. Sept. 18, 2020).
Hunt v. Wash. State Apple Advertising Comm'n, 432 U.S. 333, 343, 97 S.Ct. 2434, 53 L.Ed.2d 383 (1977).
Cegavske, ––– F.Supp.3d at ––––, 2020 WL 5626974 at *4 (internal citations omitted).
Id.
Doc. 170 at 11 (citing Drake v. Obama, 664 F.3d 774, 783 (9th Cir. 2011)).
664 F.3d at 783.
Townley v. Miller, 722 F.3d 1128, 1135 (9th Cir. 2013) (emphasis added) (quoting Drake, 664 F.3d at 782); see also
Mecinas v. Hobbs, No. CV-19-05547, ––– F.Supp.3d ––––, –––– – ––––, 2020 WL 3472552, at *11-12 (D. Ariz. June
25, 2020) (explaining the current state of the doctrine of competitive standing and collecting cases).
459 F.3d at 586.
44 F.3d 48, 53 (2d Cir. 1994).
917 F.2d 1028, 1029-30 (7th Cir. 1990).
Id.
See Green Party of Tennessee v. Hargett, 767 F.3d 533, 542-43 (6th Cir. 2014) (finding that Plaintiffs had standing to
challenge Tennessee's ballot-access laws); see also Pavek v. Donald J. Trump for President, Inc., 967 F.3d 905, 907
(8th Cir. 2020) (finding that Plaintiffs had standing to challenge the ballot-ordering provision in Minnesota); Nelson v.
Warner, No. 3:19-0898, ––– F.Supp.3d ––––, ––––, 2020 WL 4582414, at *3 (S.D. W. Va. Aug. 10, 2020) (same).
19 F.3d 873 (3d Cir. 1994).
Even assuming, however, that the Trump Campaign could establish that element of standing, it would still fail to satisfy
the causation and redressability requirements for the same reasons that the Voter Plaintiffs do. To the extent the Trump
Campaign alleges any injury at all, its injury is attenuated from the actions challenged.
Richardson v. Bledsoe, 829 F.3d 273, 289 n. 13 (3d Cir. 2016) (Smith, C.J.) (citing Szabo v. Bridgeport Machines, Inc.,
249 F.3d 672, 676 (7th Cir. 2001) (Easterbrook, J.)).
Neitzke v. Williams, 490 U.S. 319, 326-27, 109 S.Ct. 1827, 104 L.Ed.2d 338 (1989).
Id. at 326, 109 S.Ct. 1827 (internal citations omitted).
Id. at 327, 109 S.Ct. 1827.
Howard M. Wasserman, The Roberts Court and the Civil Procedure Revival, 31 Rev. Litig. 313, 316, 319-20 (2012).
550 U.S. 544, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007).
556 U.S. 662, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009).
Id. at 670, 129 S.Ct. 1937.
Id.
Id. at 678, 129 S.Ct. 1937 (quoting Twombly, 550 U.S. at 570, 127 S.Ct. 1955).
Id.
Connelly v. Lane Const. Corp., 809 F.3d 780, 786 (3d Cir. 2016) (Jordan, J.) (internal quotations and citations omitted).
Twombly, 550 U.S. at 556, 127 S.Ct. 1955.
Iqbal, 556 U.S. at 679, 129 S.Ct. 1937.
Id. at 678, 129 S.Ct. 1937 (quoting Twombly, 550 U.S. at 557, 127 S.Ct. 1955).
Phillips v. County. of Allegheny, 515 F.3d 224, 228 (3d Cir. 2008) (Nygaard, J.).
Iqbal, 556 U.S. at 678, 129 S.Ct. 1937;
Id. (citing Twombly, 550 U.S. at 555, 127 S.Ct. 1955); see also Fowler v. UPMC Shadyside, 578 F.3d 203, 210 (3d Cir.
2009) (Nygaard, J.) (“After Iqbal, it is clear that conclusory or ‘bare-bones’ allegations will no longer survive a motion
to dismiss.”).
Connelly, 809 F.3d at 787 (internal quotations and citations omitted).
U.S. Const. Amend. XIV, cl. 1.
Doc. 170 at 29.
Nordlinger v. Hahn, 505 U.S. 1, 10, 112 S.Ct. 2326, 120 L.Ed.2d 1 (1992) (citing F.S. Royster Guano Co. v. Virginia, 253
U.S. 412, 415, 40 S.Ct. 560, 64 L.Ed. 989 (1920)).
Id. (citing F.S. Royster Guano Co. v. Virginia, 253 U.S. 412, 415, 40 S.Ct. 560, 64 L.Ed. 989 (1920)).
Id. (quoting McGowan v. Maryland, 366 U.S. 420, 425-26, 81 S.Ct. 1101, 6 L.Ed.2d 393 (1961)).

2:20-cv-01771-PP
12/07/20
Page
15 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1097 Case

14

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

100
101
102
103
104
105
106
107
108
109
110
111
112
113
114
115
116
117
118

119
120
121
122
123
124
125
126
127
128
129
130
131
132
133
134
135
136

Reynolds v. Sims, 377 U.S. 533, 554, 84 S.Ct. 1362, 12 L.Ed.2d 506 (1964).
Id. (citing Ex parte Yarbrough, 110 U.S. 651, 4 S.Ct. 152, 28 L.Ed. 274 (1884)).
Id. (citing United States v. Mosley, 238 U.S. 383, 35 S.Ct. 904, 59 L.Ed. 1355 (1915)).
Griffin v. Roupas, 385 F.3d 1128, 1130 (7th Cir. 2004) (citing U.S. Const. Art. I, § 4, cl. 1).
Donald J. Trump for President, Inc., ––– F.Supp.3d at ––––, 2020 WL 5997680, at *38 (quoting Shelby County, Ala. v.
Holder, 570 U.S. 529, 543, 133 S.Ct. 2612, 186 L.Ed.2d 651 (2013)).
Id. (quoting Burdick v. Takushi, 504 U.S. 428, 433, 112 S.Ct. 2059, 119 L.Ed.2d 245 (1992)).
Burdick, 504 U.S. at 432-33, 112 S.Ct. 2059.
Crawford v. Marion County Election Board, 553 U.S. 181, 190, 128 S.Ct. 1610, 170 L.Ed.2d 574 (2008) (quoting Burdick,
504 U.S. at 434, 112 S.Ct. 2059).
Donald J. Trump for President, ––– F.Supp.3d at ––––, 2020 WL 5997680, at *39 (quoting Crawford, 553 U.S. at 204,
128 S.Ct. 1610 (Scalia, J. concurring)).
See id. at ––––, 2020 WL 5997680, at *40; see also Arizona Libertarian Party v. Hobbs, 925 F.3d 1085, 1090 (9th Cir.
2019); Fish v. Schwab, 957 F.3d 1105, 1124 (10th Cir. 2020).
Donald J. Trump for President, ––– F.Supp.3d at ––––, 2020 WL 5997680, at *39 (quoting Ohio Council 8 Am. Fed'n of
State v. Husted, 814 F.3d 329, 335 (6th Cir. 2016)).
Id. (citing Biener v. Calio, 361 F.3d 206, 215 (3d Cir. 2004)).
Even after questioning from this Court during oral argument regarding the appropriate standard of review for their equalprotection claim, Plaintiffs failed to discuss this key aspect of the claim in briefing. See Doc. 170.
See, e.g., Short v. Brown, 893 F.3d 671, 677 (9th Cir. 2018).
Donald J. Trump for President, ––– F.Supp.3d at ––––, 2020 WL 5997680, at *44 (emphasis in original).
Biener, 361 F.3d at 215.
Marbury v. Madison, 5 U.S. 137, 147, 1 Cranch 137, 2 L.Ed. 60 (1803).
Gill, 138 S. Ct. at 1934 (“A plaintiff's remedy must be tailored to redress the plaintiff's particular injury.”) (citing Cuno,
547 U.S. at 353, 126 S.Ct. 1854).
Curiously, Plaintiffs now claim that they seek only to enjoin certification of the presidential election results. Doc. 183 at
1. They suggest that their requested relief would thus not interfere with other election results in the state. But even if it
were logically possible to hold Pennsylvania's electoral system both constitutional and unconstitutional at the same time,
the Court would not do so.
Heckler v. Mathews, 465 U.S. 728, 740, 104 S.Ct. 1387, 79 L.Ed.2d 646 (1984) (internal citations omitted).
Id. at 741, 104 S.Ct. 1387; Califano v. Westcott, 443 U.S. 76, 90-91, 99 S.Ct. 2655, 61 L.Ed.2d 382 (1979).
E.g., Sessions v. Morales-Santana, ––– U.S. ––––, 137 S. Ct. 1678, 1701, 198 L.Ed.2d 150 (2017).
Id. (internal citations omitted).
See Palmer v. Thompson, 403 U.S. 217, 226-27, 91 S.Ct. 1940, 29 L.Ed.2d 438 (1971) (addressing whether a city's
decision to close pools to remedy racial discrimination violated the Thirteenth Amendment); see also Reynolds, 377 U.S.
at 554, 84 S.Ct. 1362 (citing Mosley, 238 U.S. at 383, 35 S.Ct. 904).
Marbury, 5 U.S. at 147.
Perles v. County Return Bd. of Northumberland County, 415 Pa. 154, 202 A.2d 538, 540 (1964) (cleaned up).
Id. at 567.
Doc. 170 at 29. Count I makes no mention of the poll-watching allegations, nor does it seek relief for any violation of
law on the basis of those allegations. Out of an abundance of caution, however, the Court considers whether these
allegations state a claim.
Id.
Doc. 125 at ¶ 134 (emphasis added).
Id. at ¶ 135 (emphasis added).
Id. at ¶ 136 (emphasis added).
Id. at ¶ 137 (emphasis added).
531 U.S. 98, 121 S.Ct. 525, 148 L.Ed.2d 388 (2000).
Doc. 170 at 13.
Bush, 531 U.S. at 109, 121 S.Ct. 525 (emphasis added).
Id.

2:20-cv-01771-PP
12/07/20
Page
16 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1098 Case

15

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 6821992

137
138
139
140

Id.
Donald J. Trump for President, ––– F.Supp.3d at ––––, 2020 WL 5997680, at *44.
Northeast Ohio Coalition for the Homeless v. Husted, 837 F.3d 612, 636 (6th Cir. 2016).
Lorenz v. CSX Corp., 1 F.3d 1406, 1413–14 (3d Cir.1993).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/07/20
Page
17 of 17
Document 55-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1099 Case

16

EXHIBIT 3

1100 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 13 Document 55-3

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

2020 WL 6817513
Only the Westlaw citation is currently available.
United States District Court,
N.D. Georgia, Atlanta Division.

L. LIN WOOD, JR., Plaintiff,
v.
BRAD RAFFENSPERGER, in his official
capacity as Secretary of State of Georgia;
REBECCA N. SULLIVAN, in her official
capacity as Vice Chair of the Georgia State
Election Board; DAVID J. WORLEY,
in his official capacity as a Member
of the Georgia State Election Board;
MATTHEW MASHBURN, in his official
capacity as a Member of the Georgia
State Election Board; and ANH LE, in
her official capacity as a Member of the
Georgia State Election Board, Defendants.
Civil Action No. 1:20-cv-04651-SDG
|
11/20/2020
Steven D. Grimberg, United States District Court Judge
OPINION AND ORDER
*1 This matter is before the Court on a motion for temporary
restraining order filed by Plaintiff L. Lin Wood, Jr. [ECF
6]. For the following reasons, and with the benefit of oral
argument, Wood's motion is DENIED.
I. BACKGROUND
On November 3, 2020, the United States conducted a general
election for various federal, state, and local political offices
(the General Election).1 However, the voting process in
Georgia began in earnest before that date. On September 15,
2020, local election officials began mailing absentee ballots
for the General Election to eligible voters.2 On October 12,
2020, Georgia's in-person, early voting period started.3 This
entire process played out amidst the throes of a global health

pandemic caused by the novel coronavirus SARS-CoV-2—
colloquially known as COVID-19. Due in large part to the
threat posed by COVID-19, an overwhelming number of
Georgia voters—over 1 million of the 5 million votes cast by
November 3—participated in the General Election through
the use of absentee ballots.4
Wood, a registered voter in Fulton County, Georgia,
believes Defendants— the elected officials tasked with
conducting elections in the state—performed their roles
in an unconstitutional manner. As such, Wood initiated
this action on November 13, 2020, ten days after the
conclusion of the General Election.5 On November 16, Wood
filed an Amended Complaint, asserting three claims against
Defendants—all in their official capacities—for violation of:
the First Amendment and the Equal Protection Clause of the
Fourteenth Amendment (Count I); the Electors and Elections
Clause of the Constitution (Count II); and the Due Process
Clause of the Fourteenth Amendment (Count III).6
Counts I and II seek extraordinary relief:
As a result of Defendants’ unauthorized actions and
disparate treatment of defective absentee ballots, this Court
should enter an order, declaration, and/or injunction that
prohibits Defendants from certifying the results of the 2020
general election in Georgia on a statewide basis.
Alternatively, this Court should enter an order, declaration,
and/or injunction prohibiting Defendants from certifying
the results of the General Election which include the
tabulation of defective absentee ballots, regardless of
whether said ballots were cured.
Alternatively, this Court should enter an order, declaration,
and/or injunction that the results of the 2020 general
election in Georgia are defective as a result of the abovedescribed constitutional violations, and that Defendants are
required to cure said deficiencies in a manner consistent
with federal and Georgia law, and without the taint of the
procedures described in the Litigation Settlement.7
For Count III, Wood requests an order, declaration, and/
or injunction requiring Defendants to perform a myriad of
activities, including ordering a second recount prior to the
certification of the election results and permitting monitors
designated by the Republican Party to have special access to
observe all election activity.8

Filedto12/07/20
2 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1101 Case

1

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

*2 On November 17, 2020, Wood filed an emergency
9

motion for a temporary restraining order. Two sets of parties
subsequently sought permission to intervene as defendants
(collectively, the Intervenors): (1) the Democratic Party of
Georgia, Inc. (DPG), DSCC, and DCCC; and (2) the Georgia
State Conference of the NAACP (Georgia NAACP) and
Georgia Coalition for the People's Agenda (GCPA).10 On
November 19, Defendants and Intervenors filed separate
responses in opposition to Wood's motion for a temporary
restraining order.11 The Court held oral argument on Wood's
motion the same day. At the conclusion of the oral argument,
the Court denied Wood's request for a temporary restraining
order. This Order follows and supplements this Court's oral
ruling.
a. Georgia Statutory Law Regarding Absentee Ballots.
Georgia law authorizes any eligible voter to cast his or her
absentee ballot
by mail without providing a reason. O.C.G.A. § 21-2-380(b).
To initiate the absentee-voting process, a prospective voter
must submit an application to the applicable registrar's or
absentee ballot clerk's office. O.C.G.A. § 21-2-381(a)(1)
(A). Upon receipt of a timely absentee ballot request, a
registrar or absentee ballot clerk must enter the date the
office received the application and compare the prospective
voter's information and signature on the application with the
information and signature on file in the registrar's or clerk's
office. O.C.G.A. § 21-2-381(b)(1). If the prospective voter's
eligibility is confirmed, the registrar or clerk must mail the
voter an absentee ballot. O.C.G.A. § 21-2-381(b)(2)(A).
An absentee voter receives two envelopes along with the
absentee ballot; the completed ballot is placed in the smaller
envelope, which is then placed in the larger envelope,
which contains the oath of the elector and a signature
line. O.C.G.A. § 21-2-384(b). Upon receipt of a timely
absentee ballot, a registrar or clerk is required to compare
the identifying information and signature provided in the oath
with the information and signature on file in the respective
office. O.C.G.A. § 21-2-386(a)(1)(B). If the information and
signature appear to match, the registrar or clerk signs his
or her name below the voter's oath. Id. If the information
or signature is missing or does not appear to match, the
registrar or clerk is required to write “Rejected” across the
envelope and provide the reason for the rejection. O.C.G.A.
§ 21-2-386(a)(1)(C). The board of registrars or absentee
ballot clerk is required to “promptly notify” the elector of
the rejection, who then has until the end of the period for

verifying provisional ballots to cure the issue that resulted in
the rejection. Id.
Secretary of State Raffensperger is “the state's chief election
official.”
O.C.G.A. § 21-2-50(b). See also Ga. Op. Att'y Gen. No.
2005-3 (Apr. 15, 2005) (“Just as a matter of sheer volume
and scope, it is clear that under both the Constitution and
the laws of the State the Secretary is the state official with
the power, duty, and authority to manage the state's electoral
system. No other state official or entity is assigned the range
of responsibilities given to the Secretary of State in the area
of elections.”). In this role, Raffensperger is required to,
among other things, “promulgate rules and regulations so
as to obtain uniformity in the practices and proceedings of
superintendents, registrars, deputy registrars, poll officers,
and other officials” and “formulate, adopt, and promulgate
such rules and regulations, consistent with law, as will be
conducive to the fair, legal, and orderly conduct of primaries
and elections.” O.C.G.A. § 21-3-31(1)-(2).
b. The Settlement Agreement
Wood does not challenge the underlying constitutionality
of the absentee ballot framework enacted by the Georgia
General Assembly. The genesis of his claims instead derive
from a lawsuit filed over one year ago by the DPG
against Raffensperger, the then-Members of the Georgia
State Election Board, and the then-Members of the Gwinnett
County Board of Registration and Elections.12 In that action,
the DPG, DSCC, and DCCC challenged several aspects of the
process for rejecting absentee ballots based on a missing or
mismatched signature.13
*3 On March 6, 2020, the DPG, DSCC, DCCC,
Raffensperger, and the Members of the Georgia State
Election Board executed—and filed on the public
docket—a “Compromise Settlement Agreement and
Release” (Settlement Agreement).14 As part of the Settlement
Agreement, Raffensperger agreed to issue an Official Election
Bulletin containing certain procedures for the review of
signatures on absentee ballot envelopes by county election
officials for the March 24, 2020 Presidential Primary Election
and subsequent General Election. In relevant part, the
procedures stated:
When reviewing an elector's signature on the mail-in
absentee ballot envelope, the registrar or clerk must
compare the signature on the mail-in absentee ballot

Filedto12/07/20
3 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1102 Case

2

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

envelope to each signature contained in such elector's
voter registration record in eNet and the elector's signature
on the application for the mail-in absentee ballot. If the
registrar or absentee ballot clerk determines that the
voter's signature on the mail-in absentee ballot envelope
does not match any of the voter's signatures on file in
eNet or on the absentee ballot application, the registrar
or absentee ballot clerk must seek review from two
other registrars, deputy registrars, or absentee ballot
clerks. A mail in absentee ballot shall not be rejected
unless a majority of the registrars, deputy registrars,
or absentee ballot clerks reviewing the signature agree
that the signature does not match any of the voter's
signatures on file in eNet or on the absentee ballot
application. If a determination is made that the elector's
signature on the mail-in absentee ballot envelope does not
match any of the voter's signatures on file in eNet or on the
absentee ballot application, the registrar or absentee ballot
clerk shall write the names of the three elections officials
who conducted the signature review across the face of
the absentee ballot envelope, which shall be in addition
to writing “Rejected” and the reason for the rejection as
required under OCGA 21-2-386(a)(1)(C).15
No entity or individual sought permission to intervene and
challenge the Settlement Agreement. United States District
Judge William M. Ray closed the case on March 9.16
c. The Risk-Limiting Audit
Georgia law provides procedures for conducting a “risklimiting audit” prior to the final certification of an
election. O.C.G.A. § 21-2-498. Such an audit must be
“[c]omplete[d]...in public view.” O.C.G.A. § 21-2-498(c)
(4). And the State Election Board is “authorized to
promulgate rules, regulations, and procedures to implement
and administer” an audit, including “security procedures to
ensure that [the] collection of validly cast ballots is complete,
accurate, and trustworthy throughout the audit.” O.C.G.A. §
21-2-498(d). See also Ga. Comp. R. & Regs. 183-1-15-.04
(2020).
On November 11, 2020, Raffensperger announced a statewide
risk-limiting audit (the Audit)—also referred to as a “full hand
recount”—of all votes cast in the contest for President of the
United States.17 Every county in Georgia was required to
begin the Audit at 9:00 am on November 13 and finish by
11:59 pm on November 18.18 The statewide election results
are set to be certified on November 20.19 Raffensperger

required the Audit to “be open to the public and the press”
and required local election officials to “designate a viewing
area from which members of the public and press may observe
the audit for the purpose of good order and maintaining the
integrity of the audit.”20 The two major political parties—
Democratic and Republican—were permitted “the right to
have one properly designated person as a monitor of the
audit for each ten audit teams that are conducting the audit,
with a minimum of two designated monitors in each county
per party per room where the audit is being conducted.”21
The designated monitors were not required to remain in the
public viewing areas, but were required to comply with the
rules promulgated by Raffensperger and the local election
officials.22 The Audit process differs from that required
by Georgia law for a recount requested by a unsuccessful
candidate following the official certification of votes. See
O.C.G.A. § 21-2-524.
II. LEGAL STANDARD
*4 The standard for the issuance of a temporary restraining
order and a preliminary injunction are identical. Windsor
v. United States, 379 F. App'x 912, 916–17 (11th Cir.
2010). A preliminary injunction is “an extraordinary remedy.”
Bloedorn v. Grube, 631 F.3d 1218, 1229 (11th Cir. 2011).
To obtain the relief he seeks, Wood must affirmatively
demonstrate: “(1) substantial likelihood of success on the
merits; (2) [that] irreparable injury will be suffered unless the
injunction issues; (3) the threatened injury to [him] outweighs
whatever damage the proposed injunction may cause the
opposing party; and (4) if issued, the injunction would not
be adverse to the public interest.” McDonald's Corp. v.
Robertson, 147 F.3d 1301, 1306 (11th Cir. 1998). See also
Siegel v. LePore, 234 F.3d 1163, 1176 (11th Cir. 2000) (“In
this Circuit, a preliminary injunction is an extraordinary and
drastic remedy not to be granted unless the movant clearly
established the burden of persuasion as to each of the four
prerequisites.”).
III. DISCUSSION
Wood's motion essentially boils down to two overarching
claims:
that Defendants violated the Constitution by (1) executing
and enforcing the Settlement Agreement to the extent it
requires different procedures than the Georgia Election Code,
and (2) not permitting designated monitors to have certain
live viewing privileges of the Audit at the county locations.

Filedto12/07/20
4 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1103 Case

3

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

Defendants and Intervenors posit a number of challenges to
Wood's claims.
a. Standing
As a threshold matter, the Court finds Wood lacks standing
to assert these claims. Article III limits federal courts to the
consideration of “Cases” and “Controversies.” U.S. Const.
art. III, § 2, cl. 1. The doctrine of standing “is an essential
and unchanging part of the case-or-controversy requirement
of Article III.” Lujan v. Defs. of Wildlife, 504 U.S. 555,
560 (1992). It is “built on separation-of-powers principles”
and “serves to prevent the judicial process from being used
to usurp the powers of the political branches.” Clapper v.
Amnesty Int'l USA, 568 U.S. 398, 408 (2013). See also
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (“[N]o
principle is more fundamental to the judiciary's proper role in
our system of government than the constitutional limitation
of federal-court jurisdiction to actual cases or controversies.”)
(quoting Raines v. Byrd, 521 U.S. 811, 818 (1997)). The
standing inquiry is threefold: “The litigant must prove (1)
an injury in fact that (2) is fairly traceable to the challenged
action of the defendant and (3) is likely to be redressed by a
favorable decision.” Jacobson v. Fla. Sec'y of State, 974 F.3d
1236, 1245 (11th Cir. 2020) (citing Lujan, 504 U.S. at 561).
Wood must “demonstrate standing for each claim he seeks
to press and for each form of relief that is sought”—Town
of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650
(2017)—and shoulders “the burden of establishing [each]
element[ ].” Lujan, 504 U.S. at 561.
Injury in fact is “the first and foremost of standing's three
elements” and requires Wood to show that he suffered
“an invasion of a legally protected interest that is concrete
and particularized and actual or imminent, not conjectural
or hypothetical.” Spokeo, 136 S. Ct. at 1547–48. To be
“particularized,” the alleged injury “must affect the plaintiff
in a personal and individual way.” Lujan, 504 U.S. at
561 n.1. Wood must demonstrate “a personal stake in the
outcome of the controversy,” as a federal court “is not a
forum for generalized grievances.” Gill v. Whitford, 138 S.
Ct. 1916, 1929 (2018). This requires more than a mere
“keen interest in the issue.” Trump v. Hawaii, 138 S. Ct.
2392, 2416 (2018). The alleged injury must be “distinct
from a generally available grievance about government.”
Gill, 138 S. Ct. at 1923. See also id. at 1929 (explaining
that a person's “right to vote is individual and personal
in nature...[t]hus [only] voters who allege facts showing
disadvantage to themselves as individuals have standing
to sue to remedy that disadvantage”) (quoting Reynolds v.

Sims, 377 U.S. 533, 561 (1964); Baker v. Carr, 369 U.S.
186, 206 (1962)). Claims premised on allegations that “the
law.. has not been followed...[are] precisely the kind of
undifferentiated, generalized grievance about the conduct of
government...[and] quite different from the sorts of injuries
alleged by plaintiffs in voting rights cases where we have
found standing.” Dillard v. Chilton Cnty. Comm'n, 495 F.3d
1324, 1332–33 (11th Cir. 2007) (citing Baker, 369 U.S. at
207–08). See also Lance v. Coffman, 549 U.S. 437, 440–
41 (2007) (“Our refusal to serve as a forum for generalized
grievances has a lengthy pedigree. . . . [A] generalized
grievance that is plainly undifferentiated and common to all
members of the public” is not sufficient for standing).
*5 Wood alleges he has standing because he is “a qualified
registered elector residing in Fulton County, Georgia” who
has “made donations to various Republican candidates on the
ballot for the November 3, 2020 elections, and his interests
are aligned with those of the Georgia Republican Party for the
purposes of the instant lawsuit.”23 These allegations fall far
short of demonstrating that Wood has standing to assert these
claims.
i. The Elections and Electors Clause
Starting with his claim asserted under the Elections and
Electors Clause, Wood lacks standing as a matter of law.
The law is clear: A generalized grievance regarding a state
government's failure to properly follow the Elections Clause
of the Constitution does not confer standing on a private
citizen.24 Lance, 549 U.S. at 442; Bognet, 2020 WL 6686120,
at *6 (“[P]rivate plaintiffs lack standing to sue for alleged
injuries attributable to a state government's violations of the
Elections Clause....Their relief would have no more directly
benefitted them than the public at large.”); Dillard, 495 F.3d
at 1332–33.
ii. Equal Protection
For his equal protection claim, Wood relies on a theory
of vote dilution, i.e., because Defendants allegedly did not
follow the correct processes, invalid absentee votes may have
been cast and tabulated, thereby diluting Wood's in-person
vote. But the same prohibition against generalized grievances
applies to equal protection claims. United States v. Hays,
515 U.S. 737, 743 (1995) (“The rule against generalized
grievances applies with as much force in the equal protection
context as in any other.”) Wood does not differentiate his
alleged injury from any harm felt in precisely the same

Filedto12/07/20
5 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1104 Case

4

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

manner by every Georgia voter. As Wood conceded during
oral argument, under his theory any one of Georgia's more
than seven million registered voters would have standing to
assert these claims. This is a textbook generalized grievance.
Bognet, 2020 WL 6686120, at *12 (“Voter Plaintiffs’ dilution
claim is a paradigmatic generalized grievance that cannot
support standing....Put another way, a vote cast by fraud or
mailed in by the wrong person through mistake, or otherwise
counted illegally, has a mathematical impact on the final
tally and thus on the proportional effect of every vote,
but no single voter is specifically disadvantaged. Such an
alleged dilution is suffered equally by all voters and is not
particularized for standing purposes.”) (internal punctuation
omitted) (collecting cases); Moore v. Circosta, No. 1:20cv-911, 2020 WL 6063332, a *14 (M.D.N.C. Oct. 14, 2020)
(“[T]he notion that a single person's vote will be less valuable
as a result of unlawful or invalid ballots being cast is not a
concrete and particularized injury in fact necessary for Article
III standing.”). See also Citizens for Fair Representation v.
Padilla, 815 F. App'x 120, 123 (9th Cir. 2020) (dismissing
equal protection claim for lack of standing and stating “the
Supreme Court has consistently held that a plaintiff raising
only a generally available grievance...does not state an Article
III case or controversy.”).
iii. Due Process
*6 For the same reasons, Wood also does not have standing
to pursue his due process claim. Wood asserts that various
election monitors appointed by the Republican Party “have
been denied the opportunity to be present throughout the
entire Hand Recount, and when allowed to be present, they
were denied the opportunity to observe the Hand Recount
in any meaningful way.”25 Yet, Wood does not allege that
he attempted to participate as a designated monitor. Nor
does he allege that, on behalf of the Republican Party, he
himself designated monitors who were ultimately denied
access. Wood's broad objection is that Defendants failed to
conduct the Audit fairly and consistently under Georgia law.
This is a generalized grievance.26 Lance, 549 U.S. at 440–
41. See also Nolles v. State Comm. for Reorganization of
Sch. Dists., 524 F.3d 892, 900 (8th Cir. 2008) (voters lacked
standing because substantive due process claim that delay of
implementation of new statute until after referendum election
violated their right to fair election did not allege particularized
injury).
iv. Alignment with Non-Parties

Wood further points to his status as a donor to the Republican
Party whose interests are aligned with that party and its
political candidates to support his standing argument. But
this does not sufficiently differentiate his alleged injury from
that which any voter might have suffered—no matter the
party affiliation. Ostensibly, Wood believes he suffered a
particularized injury because his preferred candidates—to
whom he has contributed money—did not prevail in the
General Election. This argument has been squarely rejected
by the Eleventh Circuit. Jacobson, 974 F.3d at 1247 (“A
candidate's electoral loss does not, by itself, injure those who
voted for the candidate. Voters have no judicially enforceable
interest in the outcome of an election. Instead, they have an
interest in their ability to vote and in their vote being given
the same weight as any other.”) (internal citation omitted).
v. Lack of Relevant Authorities
Finally, the Court notes the futility of Wood's standing
argument is particularly evident in that his sole relied-on
authority—Meek v. Metropolitan Dade County, Florida, 985
F.2d 1471 (11th Cir. 1993)—is no longer good law. The
Eleventh Circuit expressly abrogated its holding in that
case over thirteen years ago. Dillard, 495 F.3d at 1331–32
(“We subsequently upheld Meek's reasoning against repeated
challenges that it was wrongly decided in light of the Supreme
Court's later decisions...[b]ut it is clear that we can no
longer do so in light of the Supreme Court's most recent
pronouncement on voter standing in Lance.”).
During oral argument, Wood additionally pointed to Roe v.
State of Alabama by & through Evans, 43 F.3d 574 (11th
Cir. 1995), but that case does not support Wood's standing
argument. For example, two plaintiffs in Roe were candidates
for a political office decided in the challenged election. Id. at
579. Wood is a private citizen, not a candidate for any elected
office. Moreover, the Eleventh Circuit found particularized
harm in the post-election inclusion of absentee ballots that
had been deemed invalid. Id. at 580. Wood here seeks to
do the opposite—remove validly cast absentee ballots after
completion of the election.
In sum, Wood lacks standing to pursue these claims in the first
instance.
b. The Doctrine of Laches
*7 Even if the Court found Wood possessed standing
to pursue his claims regarding the Settlement Agreement
(Counts I and II), such claims would nonetheless be barred by

Filedto12/07/20
6 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1105 Case

5

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

the doctrine of laches. To establish laches, Defendants must
show “(1) there was a delay in asserting a right or a claim, (2)
the delay was not excusable, and (3) the delay caused [them]
undue prejudice.” United States v. Barfield, 396 F.3d 1144,
1150 (11th Cir. 2005). See also Democratic Exec. Comm.
of Fla. v. Lee, 915 F.3d 1312, 1326 (11th Cir. 2019) (“To
succeed on a laches claim, [defendant] must demonstrate
that [p]laintiffs inexcusably delayed bringing their claim and
that the delay caused it undue prejudice.”). Courts apply
laches in election cases. E.g., Sanders v. Dooly Cnty., Ga.,
245 F.3d 1289, 1291 (11th Cir. 2001) (“[W]e conclude that
the district court did not abuse its discretion in deeming the
claims seeking injunctive relief to be laches-barred.”). See
also, e.g., Detroit Unity Fund v. Whitmer, 819 F. App'x 421,
422 (6th Cir. 2020) (holding district court did not err in finding
that plaintiff's claims regarding deadline for local ballot
initiatives “barred by laches, considering the unreasonable
delay on the part of [p]laintiffs and the consequent prejudice
to [d]efendants”). Cf. Benisek v. Lamone, 138 S. Ct. 1942,
1944 (2018) (“[A] party requesting a preliminary injunction
must generally show reasonable diligence. That is as true in
election law cases as elsewhere.”) (internal citation omitted).
Defendants have established each element of laches.
i. Delay
First, Wood delayed considerably in asserting these claims.
On March 6, 2020, the GDP, DSCC, DCCC, and Defendants
executed the Settlement Agreement, which was entered on
the public docket. It has since been in effect for at least
three elections. Nearly eight months later—and after over
one million voters cast their absentee ballots in the General
Election—Wood challenges the terms of the Settlement
Agreement as unconstitutional. Wood could have, and should
have, filed his constitutional challenge much sooner than he
did, and certainly not two weeks after the General Election.
ii. Excuse
Nor has Wood articulated any reasonable excuse for his
prolonged delay. Wood failed to submit any evidence
explaining why he waited to bring these claims until the
eleventh hour. He instead relies solely on a representation
from his legal counsel during oral argument, without
evidence, that Wood did not vote in any election between
the execution of the Settlement Agreement and the General
Election. Even assuming this proffer to be true, it does not
provide a reasonable justification for the delay. Wood's claims
are constitutional challenges to Defendants’ promulgation
authority under state law. If valid, these claims should not

depend on the outcome of any particular election, to wit,
whether Wood's preferred candidates won or lost. Indeed,
Wood's claims, even assuming his standing for bringing
them could be established, were ripe the moment the parties
executed the Settlement Agreement.
iii. Prejudice
Finally, Defendants, Intervenors, and the public at large
would be significantly injured if the Court were to excuse
Wood's delay. A bedrock principle of election law is that
“lower federal courts should ordinarily not alter the election
rules on the eve of an election.” Republican Nat'l Comm.
v. Democratic Nat'l Comm., 140 S. Ct. 1205, 1207 (2020)
(citing Purcell v. Gonzalez, 549 U.S. 1, 5 (2006)). This
is because a last-minute intervention by a federal court
could “result in voter confusion and consequent incentive
to remain away from the polls.” Purcell, 549 U.S. at 4–5.
See also Democratic Nat'l Comm. v. Wisc. State Legislature,
No. 20A66, 2020 WL 6275871, at *4 (U.S. Oct. 26, 2020)
(Kavanaugh, J., concurring in denial of application to vacate
stay) (“The principle [of judicial restraint] also discourages
last-minute litigation and instead encourages litigants to bring
any substantial challenges to election rules ahead of time,
in the ordinary litigation process. For those reasons, among
others, this Court has regularly cautioned that a federal court's
last-minute interference with state election laws is ordinarily
inappropriate.”).
*8 Underscoring the exceptional nature of his requested
relief, Wood's claims go much further; rather than changing
the rules on the eve of an election, he wants the rules
for the already concluded election declared unconstitutional
and over one million absentee ballots called into question.
Beyond merely causing confusion, Wood's requested relief
could disenfranchise a substantial portion of the electorate
and erode the public's confidence in the electoral process. See
Sw. Voter Registration Educ. Project v. Shelley, 344 F.3d 914,
919 (9th Cir. 2003) (“Interference with impending elections
is extraordinary, and interference with an election after voting
has begun is unprecedented.”) (citation omitted); Arkansas
United v. Thurston, No. 5:20-cv-5193, 2020 WL 6472651, at
*5 (W.D. Ark. Nov. 3, 2020) (“[T]he equities do not favor
intervention where the election is already in progress and the
requested relief would change the rules of the game midplay.”).
Thus, Wood is not entitled to injunctive relief on Counts I and
II for the additional reason that these claims are barred by the
doctrine of laches.

Filedto12/07/20
7 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1106 Case

6

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

c. The Merits of the Request for Injunctive Relief
Even assuming Wood possessed standing, and assuming
Counts I and II are not barred by laches, the Court nonetheless
finds Wood would not be entitled to the relief he seeks.
The Court addresses each required element for a temporary
restraining order in turn.

similarly situated voters, without a corresponding burden on
the fundamental right to vote.” Obama for Am., 697 F.3d at
429 (citing McDonald v. Bd. of Election Comm'rs, 394 U.S.
802, 807–09 (1969)). If a fundamental right is implicated, the
claim is governed by the flexible Anderson/Burdick balancing
test. Burdick, 504 U.S. at 433–35; Anderson v. Celebrezze,
460 U.S. 780, 788 (1983).
*9 Wood's equal protection claim does not fit within this

i. Substantial Likelihood of Success on the Merits
1. Equal Protection (Count I)
Wood argues the execution and enforcement of the Settlement
Agreement burdens his right to vote in contravention of the
Equal Protection Clause because the agreement sets forth
additional voting safeguards not found in the Georgia Election
Code. States retain the power to regulate their own elections.
Burdick v. Takushi, 504 U.S. 428, 433 (1992) (citing U.S.
Const. Art. I, § 4, cl. 1). The Supreme Court has held that:
Common sense, as well as constitutional law, compels the
conclusion that government must play an active role in
structuring elections; as a practical matter, there must be a
substantial regulation of elections if they are to be fair and
honest and if some sort of order, rather than chaos, is to
accompany the democratic processes.
Burdick, 504 U.S. at 433 (citing Storer v. Brown, 415 U.S.
724, 730 (1974)).
Inevitably, most election laws will “impose some burden upon
individual voters.” Burdick, 504 U.S. at 433. But the Equal
Protection Clause only becomes applicable if “a state either
classifies voters in disparate ways...or places restrictions on
the right to vote.” Obama for Am. v. Husted, 697 F.3d 423,
428 (6th Cir. 2012). As recently summarized by one federal
district court:
The Supreme Court has identified two theories of voting
harms prohibited by the Fourteenth Amendment. First,
the Court has identified a harm caused by debasement or
dilution of the weight of a citizen's vote, also referred to
[as] vote dilution....Second, the Court has found that the
Equal Protection Clause is violated where the state, having
once granted the right to vote on equal terms, through later
arbitrary and disparate treatment, values one person's vote
over that of another.
Moore, 2020 WL 6063332, at *12 (citing Bush v. Gore,
531 U.S. 98, 104–05 (2000); Reynolds, 377 U.S. at 554).
A rationale basis standard of review applies if the plaintiff
alleges “that a state treated him or her differently than

framework.27 Wood does not articulate a cognizable harm
that invokes the Equal Protection Clause. For example, to the
extent Wood relies on a theory of disparate treatment, Bush
v. Gore is inapplicable. Defendants applied the Settlement
Agreement in a wholly uniform manner across the entire
state.28 In other words, no voter—including Wood—was
treated any differently than any other voter. E.g., Wise v.
Circosta, 978 F.3d 93, 100 (4th Cir. 2020); Deutsch v. New
York State Bd. of Elections, No. 20 CIV. 8929 (LGS), 2020
WL 6384064, at *6 (S.D.N.Y. Oct. 30, 2020).
Wood fares no better with a vote dilution argument.
According to Wood, his fundamental right to vote was
burdened because the “rules and regulations set forth in the
[Settlement Agreement] created an arbitrary, disparate, and
ad hoc process for processing defective absentee ballots, and
for determining which of such ballots should be ‘rejected,’
contrary to Georgia law.”29 At the starting gate, the additional
safeguards on signature and identification match enacted by
Defendants did not burden Wood's ability to cast his ballot
at all. Wood, according to his legal counsel during oral
argument, did not vote absentee during the General Election.
And the “burden that [a state's] signature-match scheme
imposes on the right to vote.. falls on vote-by-mail and
provisional voters’ fundamental right to vote.” Democratic
Exec. Comm. of Fla. v. Lee, 915 F.3d 1312, 1319 (11th Cir.
2019).
This leaves Wood to speculate that, because the Settlement
Agreement required three ballot clerks—as opposed to just
one—to review an absentee ballot before it could be rejected,
fewer ballots were ultimately rejected, invalid ballots were
tabulated, and his in-person vote was diluted. In support
of this argument, Wood relies on Baker v. Carr, where
the Supreme Court found vote dilution in the context of
apportionment of elected representatives. 369 U.S. at 204–
208. But Wood cannot transmute allegations that state
officials violated state law into a claim that his vote was
somehow weighted differently than others. This theory
has been squarely rejected. Bognet, 2020 WL 6686120, at

Filedto12/07/20
8 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1107 Case

7

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

*11 (“[T]he Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes were
weighted differently. Instead, Plaintiffs advance an Equal
Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal
treatment. And if dilution of lawfully cast ballots by the
‘unlawful’ counting of invalidly cast ballots were a true equalprotection problem, then it would transform every violation
of state election law (and, actually, every violation of every
law) into a potential federal equal-protection claim requiring
scrutiny of the government's ‘interest’ in failing to do more to
stop the illegal activity. That is not how the Equal Protection
Clause works.”).
*10 Even if Wood's claim were cognizable in the equal
protection framework, it is not supported by the evidence
at this stage. Wood's argument is that the procedures in the
Settlement Agreement regarding information and signature
match so overwhelmed ballot clerks that the rate of rejection
plummeted and, ergo, invalid ballots were passed over and
counted. This argument is belied by the record; the percentage
of absentee ballots rejected for missing or mismatched
information and signature is the exact same for the 2018
election and the General Election (.15%).30 This is despite
a substantial increase in the total number of absentee ballots
submitted by voters during the General Election as compared
to the 2018 election.31
In sum, there is insubstantial evidence supporting Wood's
equal protection theory and he has not established a
substantial likelihood of success on the merits as to Count I.
2. Electors and Elections Clauses (Count II)
In relevant part, the Constitution states: “The Times,
Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the
Legislature thereof.” U.S. Const. art. I, § 4, cl. 1. This
provision— colloquially known as the Elections Clause—
vests authority in the states to regulate the mechanics of
federal elections. Foster v. Love, 522 U.S. 67, 69 (1997).
The “Electors Clause” of the Constitution similarly states that
“[e]ach State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of [Presidential] Electors.” U.S.
Const. art. II, § 1, cl. 2.
Wood argues Defendants violated the Elections and Electors
Clauses because the “procedures set forth in the [Settlement
Agreement] for the handling of defective absentee ballots

is not consistent with the laws of the State of Georgia,
and thus, Defendants’ actions...exceed their authority.”32
Put another way, Wood argues Defendants usurped the role
of the Georgia General Assembly—and thereby violated
the United States Constitution—by enacting additional
safeguards regarding absentee ballots not found in the
Georgia Election Code. In support, Wood points to Chief
Justice Rehnquist's concurrence in Bush v. Gore, which states
that “in a Presidential election the clearly expressed intent of
the legislature must prevail.” 531 U.S. at 120 (Rehnquist, C.J.,
concurring).
State legislatures—such as the Georgia General Assembly
—possess the authority to delegate their authority over
elections to state officials in conformity with the Elections
and Electors Clauses. Ariz. State Legislature, 576 U.S. at 816
(“The Elections Clause [ ] is not reasonably read to disarm
States from adopting modes of legislation that place the lead
rein in the people's hands...it is characteristic of our federal
system that States retain autonomy to establish their own
governmental processes.”). See also Corman v. Torres, 287 F.
Supp. 3d 558, 573 (M.D. Pa. 2018) (“The Elections Clause,
therefore, affirmatively grants rights to state legislatures,
and under Supreme Court precedent, to other entities to
which a state may, consistent with the Constitution, delegate
lawmaking authority.”). Cf. Bullock, 2020 WL 5810556, at
*11 (“A survey of the relevant case law makes clear that
the term ‘Legislature’ as used in the Elections Clause is not
confined to a state's legislative body.”).
Recognizing that Secretary Raffensperger is “the state's chief
election official,”33 the General Assembly enacted legislation
permitting him (in his official capacity) to “formulate, adopt,
and promulgate such rules and regulations, consistent with
law, as will be conducive to the fair, legal, and orderly
conduct of primaries and elections.” O.C.G.A. § 21-2-31(2).
The Settlement Agreement is a manifestation of Secretary
Raffensperger's statutorily granted authority. It does not
override or rewrite state law. It simply adds an additional
safeguard to ensure election security by having more than
one individual review an absentee ballot's information and
signature for accuracy before the ballot is rejected. Wood
does not articulate how the Settlement Agreement is not
“consistent with law” other than it not being a verbatim
recitation of the statutory code. Taking Wood's argument at
face value renders O.C.G.A. § 21-2-31(2) superfluous. A
state official—such as Secretary Raffensperger—could never
wield his or her authority to make rules for conducting
elections that had not otherwise already been adopted

Filedto12/07/20
9 of 13Works.
Document 55-3
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1108 Case

8

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

by the Georgia General Assembly. The record in this
case demonstrates that, if anything, Defendants’ actions in
entering into the Settlement Agreement sought to achieve
consistency among the county election officials in Georgia,
which furthers Wood's stated goals of conducting “[f]ree, fair,
and transparent public elections.”34
*11 Wood has not demonstrated a substantial likelihood of
success as to Count II.
3. Due Process (Count III)
Under the Fourteenth Amendment, “[n]o State shall...deny
to any person within its jurisdiction the equal protection of
the laws.” U.S. Const. amend. XIV. The Due Process Clause
has two components: procedural and substantive. DeKalb
Stone, Inc. v. Cnty. of DeKalb, Ga., 106 F.3d 956, 959 (11th
Cir. 1997). Wood alleges that Defendants have “fail[ed]...to
ensure that the Hand Recount is conducted fairly and in
compliance with the Georgia Election Code” by denying
monitors “the opportunity to be present throughout the entire
Hand Recount, and when allowed to be present, they were
denied the opportunity to observe the Hand Recount in any
meaningful way.”35 Although not articulated in his Amended
Complaint or motion for temporary restraining order, Wood
clarified during oral argument that he is pursing both a
procedural and substantive due process claim. Each will be
addressed in turn.
a) Procedural Due Process
A procedural due process claim raises two inquires:
“(1) whether there exists a liberty or property interest
which has been interfered with by the State and (2)
whether the procedures attendant upon that deprivation were
constitutionally sufficient.” Richardson v. Texas Sec'y of
State, 978 F.3d 220, 229 (5th Cir. 2020) (citing Kentucky
Dep't of Corr. v. Thompson, 490 U.S. 454, 460 (1989)).
The party invoking the Due Process Clause's procedural
protections bears the “burden...of establishing a cognizable
liberty or property interest.” Richardson, 978 F.3d at 229
(citing Wilkinson v. Austin, 545 U.S. 209, 221 (2005)). Wood
bases his procedural due process claim on “a vested interest
in being present and having meaningful access to observe
and monitor the electoral process.”36 But Wood does not
articulate how this “vested interest” fits within a recognized,
cognizable interest protected by procedural due process. The
Court is not persuaded that the right to monitor an audit
or vote recount is a liberty or property right secured by

the Constitution. For example, the Eleventh Circuit does
“assume that the right to vote is a liberty interest protected
by the Due Process Clause.” Jones v. Governor of Fla., 975
F.3d 1016, 1048 (11th Cir. 2020). But the circuit court has
expressly declined to extend the strictures of procedural due
process to “a State's election procedures.” New Ga. Project
v. Raffensperger, 976 F.3d 1278, 1282 (11th Cir. 2020) (“The
generalized due process argument that the plaintiffs argued
for and the district court applied would stretch concepts of
due process to their breaking point.”).
More specifically, federal courts have rejected the very
interest Wood claims has been violated, i.e., the right to
observe the electoral process. See, e.g., Republican Party of
Penn. v. Cortes, 218 F. Supp. 3d 396, 408 (E.D. Pa. 2016)
(“[T]here is no individual constitutional right to serve as a
poll watcher...but rather the right is conferred by statute.”);
Donald J. Trump for President, Inc. v. Boockvar, No. 2:20cv-966, 2020 WL 5997680, at *67 (W.D. Pa. Oct. 10, 2020)
(same); Dailey v. Hands, No. 14-423, 2015 WL 1293188,
at *5 (S.D. Ala. Mar. 23, 2015) (“[P]oll watching is not a
fundamental right.”); Turner v. Cooper, 583 F. Supp. 1160,
1162 (N.D. Ill. 1983) (finding no authority “that supports the
proposition that [plaintiff] had a first amendment right to act
as a pollwatcher. Indeed, we would suggest that the state is not
constitutionally required to permit pollwatchers for political
parties and candidates to observe the conduct of elections.”).
Without such an interest, Wood cannot establish a substantial
likelihood of success on the merits as to his procedural due
process claim.
b) Substantive Due Process
*12 Wood's substantive due process claim fares no better.
The types of voting rights covered by the substantive due
process clause are considered narrow. Curry v. Baker, 802
F.2d 1302, 1314 (11th Cir. 1986). Pursuant to the “functional
structure embodied in the Constitution,” a federal court must
not “intervene to examine the validity of individual ballots or
supervise the administrative details of a local election.” Id. In
only “extraordinary circumstances will a challenge to a state
election rise to the level of a constitutional deprivation.” Id.
See also Bennett v. Yoshina, 140 F.3d 1218, 1226 (9th Cir.
1998) (“We have drawn a distinction between garden variety
election irregularities and a pervasive error that undermines
the integrity of the vote. In general, garden variety election
irregularities do not violate the Due Process Clause, even
if they control the outcome of the vote or election.”)
(citation and punctuation omitted) (collecting cases); Duncan
v. Poythress, 657 F.2d 691, 700 (5th Cir. 1981) (“[T]he due

2:20-cv-01771-PP
12/07/20
Page
10 of 13
Document 55-3
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1109 Case

9

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

process clause of the fourteenth amendment prohibits action
by state officials which seriously undermine the fundamental
fairness of the electoral process.”). It is well understood that
“garden variety” election disputes, including “the ordinary
dispute over the counting and marking of ballots” do not
rise to the level of a constitutional deprivation.37 Curry,
802 F.2d at 1314–15. See also Serpentfoot v. Rome City
Comm'n, 426 F. App'x 884, 887 (11th Cir. 2011) (“[Plaintiff's]
allegations show, at most, a single instance of vote dilution
and not an election process that has reached the point of
patent and fundamental unfairness indicative of a due process
violation.”).
Although Wood generally claims fundamental unfairness,
and the declarations and testimony submitted in support
of his motion speculate as to wide-spread impropriety, the
actual harm alleged by Wood concerns merely a “garden
variety” election dispute. Wood does not allege unfairness
in counting the ballots; instead, he alleges that select nonparty, partisan monitors were not permitted to observe the
Audit in an ideal manner. Wood presents no authority, and
the Court finds none, providing for a right to unrestrained
observation or monitoring of vote counting, recounting, or
auditing. Precedent militates against a finding of a due
process violation regarding such an “ordinary dispute over the
counting and marking of ballots.” Gamza v. Aguirre, 619 F.2d
449, 453 (5th Cir. 1980) (“If every state election irregularity
were considered a federal constitutional deprivation, federal
courts would adjudicate every state election dispute.”). Wood
has not satisfied his burden of establishing a substantial
likelihood of success on the merits as to his substantive due
process claim.
ii. Irreparable Harm
Because Wood cannot show a likelihood of success on the
merits, an extensive discussion of the remaining factors
for the issuance of a temporary restraining order is
unnecessary. Obama for Am., 697 F.3d at 436 (“When a party
seeks a preliminary injunction on the basis of a potential
constitutional violation, the likelihood of success on the
merits often will be the determinative factor.”). See also
Bloedorn, 631 F.3d at 1229 (“If [plaintiff] is unable to show
a substantial likelihood of success on the merits, we need
not consider the other requirements.”). Nonetheless, for the

second factor, Plaintiffs must show that “irreparable injury
would result if no injunction were issued.” Siegel, 234 F.3d
at 1175–76 (“A showing of irreparable injury is the sine
qua non of injunctive relief.”). This factor also weighs in
Defendants’ favor. As discussed above, Wood's allegations
are the quintessential generalized grievance. He has not
presented any evidence demonstrating how he will suffer any
particularized harm as a voter or donor by the denial of this
motion. The fact that Wood's preferred candidates did not
prevail in the General Election—for whom he may have voted
or to whom he may have contributed financially—does not
create a legally cognizable harm, much less an irreparable
one. Jacobson, 974 F.3d at 1247.
iii. Balance of the Equities and Public Interest
*13 The Court finds that the threatened injury to Defendants
as state officials and the public at large far outweigh any
minimal burden on Wood. To reiterate, Wood seeks an
extraordinary remedy: to prevent Georgia's certification of
the votes cast in the General Election, after millions of
people had lawfully cast their ballots. To interfere with the
result of an election that has already concluded would be
unprecedented and harm the public in countless ways. See Sw.
Voter Registration Educ. Project, 344 F.3d at 919; Arkansas
United, 2020 WL 6472651, at *5. Granting injunctive relief
here would breed confusion, undermine the public's trust
in the election, and potentially disenfranchise of over one
million Georgia voters. Viewed in comparison to the lack of
any demonstrable harm to Wood, this Court finds no basis in
fact or in law to grant him the relief he seeks.
IV. CONCLUSION
Wood's motion for temporary restraining order [ECF 6] is
DENIED. SO ORDERED this the 20th day of November
2020.
Steven D. Grimberg
United States District Court Judge
All Citations
Slip Copy, 2020 WL 6817513

Footnotes

1

Elections and Voter Registration Calendars, https://sos.ga.gov/index.php/electi

2:20-cv-01771-PP
12/07/20
Page
11 of 13
Document 55-3
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1110 Case

10

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

25
26

27

28
29
30
31

ons/elections_and_voter_registration_calendars (last accessed Nov. 19, 2020).
Id.
Id.
ECF 33-2; ECF 33-6; ECF 33-8.
ECF 1.
ECF 5.
E.g., ECF 5, ¶¶ 81–83, 93–95. The Litigation Settlement—also referred to as the
Settlement Agreement—is discussed infra in Section I.b.
ECF 5, ¶ 106.
ECF 6.
ECF 8; ECF 22.
ECF 31; ECF 34; ECF 39.
Democratic Party of Ga., Inc. v. Raffensperger, 1:19-cv-05028-WMR (ECF 1)
(Compl.).
Id.
Id. at ECF 56 (Settlement Agreement).
Id. (emphasis added).
Id. at ECF 57.
ECF 33-1; ECF 33-2; ECF 33-3.
Id.
Id.
ECF 33-4.
Id.
Id.
ECF 5, ¶ 8.
Although separate constitutional provisions, the Electors Clause and Elections
Clause share “considerably similarity” and may be interpreted in the same manner. Ariz. State Leg. v. Ariz. Indep.
Redistricting Comm'n, 576 U.S. 787, 839 (2015) (Roberts, C.J., dissenting). See also Bognet v. Sec'y Commonwealth of
Pa., No. 20-3214, 2020 WL 6686120, at *7 (3d Cir. Nov. 13, 2020) (applying same test for standing under both Elections
Clause and Electors Clause); Donald J. Trump for President, Inc. v. Bullock, No. CV 20-66-H-DLC, 2020 WL 5810556, at
*11 (D. Mont. Sept. 30, 2020) (“As an initial matter, the Court finds no need to distinguish between the term ‘Legislature’
as it is used in the Elections Clause as opposed to the Electors Clause.”).
ECF 6, at 21.
To the extent Wood attempts to rely on a theory of third party standing, the
Court disagrees; the doctrine is disfavored and Wood has not alleged or proven any of the required elements—that (1) he
“suffered an injury-in-fact that gives [him] a sufficiently concrete interest in the dispute”; (2) he has “a close relationship
to the third party”; and (3) there is “a hindrance to the third party's ability to protect its own interests.” Aaron Private Clinic
Mgmt. LLC v. Berry, 912 F.3d 1330, 1339 (11th Cir. 2019) (internal quotation marks omitted).
The Court notes that, in the Amended Complaint, Wood alludes to issues
caused by Raffensperger's adoption of Ballot Trax—an electronic interface that permits an elector to track his or her
ballot as it is being processed [ECF 5, ¶¶ 44–46]. Wood also alleges harm in that the Settlement Agreement permitted
the DPG to submit “additional guidance and training materials” for identifying a signature mismatch, which Defendants
“agree[d] to consider in good faith” [id. ¶ 47; see also ECF 5-1, ¶ 4]. Wood did not address how these items violated his
constitutional rights—equal protection or otherwise—in either his motion or during oral argument. Therefore, the Court
need not address them at this stage.
Wood concedes as much in the Amended Complaint. See ECF 5, ¶ 25
(alleging the Settlement Agreement “set[ ] forth different standards to be followed by the clerks and registrars in processing
absentee ballots in the State of Georgia.”) (emphasis added).
ECF 6, at 18.
ECF 33-6.
Id.

2:20-cv-01771-PP
12/07/20
Page
12 of 13
Document 55-3
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1111 Case

11

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

32
33
34
35
36
37

ECF 5, ¶ 90.
O.C.G.A. § 21-2-50(b).
ECF 5, ¶ 11.
ECF 6, at 20–21.
ECF 5, ¶ 101.
In contrast, as Defendants note, it would be a violation of the constitutional
rights of the millions of absentee voters who relied on the absentee ballot procedures in exercising their right to vote.
See e.g. Griffin v. Burns, 570 F.2d 1065, 1079 (1st Cir. 1978) (finding disenfranchisement of electorate who voted by
absentee ballot a violation of substantive due process).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/07/20
Page
13 of 13
Document 55-3
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1112 Case

12

EXHIBIT 4

1113

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 8 Document 55-4

Wood v. Raffensperger, --- F.3d ---- (2020)

2020 WL 7094866
Only the Westlaw citation is currently available.
United States Court of Appeals, Eleventh Circuit.

L. Lin WOOD, Jr., Plaintiff-Appellant,
v.
Brad RAFFENSPERGER, in his
official capacity as Secretary of State
of the State of Georgia, Rebecca N.
Sullivan, in her official capacity as Vice
Chair of the Georgia State Election
Board, et al., Defendants-Appellees.
No. 20-14418
|
(December 5, 2020)
Attorneys and Law Firms
Ray S. Smith, III, Smith & Liss LLC, Atlanta, GA, for
Plaintiff-Appellant.
Charlene S. McGowan, Christopher Michael Carr, Russell
D. Willard, Attorney General's Office, Atlanta, GA, for
Defendants-Appellees.
Marc Erik Elias, Amanda Rebecca Callais, Perkins Coie,
LLP, Washington, DC, Kevin J. Hamilton, Perkins Coie, LLP,
Seattle, WA, Susan Coppedge, U.S. Attorney's Office, Halsey
G. Knapp, Jr., Joyce Gist Lewis, Adam M. Sparks, Krevolin
& Horst, LLC, Atlanta, GA, for Intervenors-Appellees.
Jon M. Greenbaum, Lawyers' Committee for Civil Rights
Under Law, Washington, DC, Bryan L. Sells, Law Office
of Bryan L. Sells, LLC, Atlanta, GA, for Amici Curiae
Helen Butler, Georgia State Conference of the NAACP,
Georgia Coalition for the Peoples' Agenda, James Woodall,
and Melvin Ivey.
Amanda J. Beane, Perkins Coie, LLP, Seattle, WA, Emily
Rachel Brailey, Alexi M. Velez, Perkins Coie, LLP,
Washington, DC, Gillian Kuhlmann, Perkins Coie, LLP, Los
Angeles, CA, Matthew Joseph Mertens, Perkins Coie, LLP,
Portland, OR, for Service.
Appeal from the United States District Court for the Northern
District of Georgia, D.C. Docket No. 1:20-cv-04651-SDG

1114

Before WILLIAM PRYOR, Chief Judge, JILL PRYOR and
LAGOA, Circuit Judges.
Opinion
WILLIAM PRYOR, Chief Judge:
*1 This appeal requires us to decide whether we have
jurisdiction over an appeal from the denial of a request for
emergency relief in a post-election lawsuit. Ten days after the
presidential election, L. Lin Wood Jr., a Georgia voter, sued
state election officials to enjoin certification of the general
election results, to secure a new recount under different rules,
and to establish new rules for an upcoming runoff election.
Wood alleged that the extant absentee-ballot and recount
procedures violated Georgia law and, as a result, his federal
constitutional rights. After Wood moved for emergency relief,
the district court denied his motion. We agree with the
district court that Wood lacks standing to sue because he
fails to allege a particularized injury. And because Georgia
has already certified its election results and its slate of
presidential electors, Wood's requests for emergency relief
are moot to the extent they concern the 2020 election. The
Constitution makes clear that federal courts are courts of
limited jurisdiction, U.S. Const. art. III; we may not entertain
post-election contests about garden-variety issues of vote
counting and misconduct that may properly be filed in state
courts. We affirm.

I. BACKGROUND
Secretary of State Brad Raffensperger is the “chief election
official” of Georgia. Ga. Code Ann. § 21-2-50(b). He
manages the state system of elections and chairs the State
Election Board. Id. § 21-2-30(a), (d). The Board has the
authority to promulgate rules and regulations to ensure
uniformity in the practices of county election officials and,
“consistent with law,” to aid “the fair, legal, and orderly
conduct of primaries and elections.” Id. § 21-2-31(1)–
(2). The Board may also publish and distribute to county
election officials a compilation of Georgia's election laws
and regulations. Id. § 21-2-31(3). Many of these laws and
regulations govern absentee voting.
Any voter in Georgia may vote by absentee ballot. Id. §
21-2-380(b). State law prescribes the procedures by which
a voter may request and submit an absentee ballot. Id. §§
21-2-381; 21-2-384; 21-2-385. The ballot comes with an oath,

Case
Filedto12/07/20
2 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

1

Wood v. Raffensperger, --- F.3d ---- (2020)

which the voter must sign and return with his ballot. Id.
§ 21-2-385(a). State law also prescribes the procedures for
how county election officials must certify and count absentee
ballots. Id. § 21-2-386(a). It directs the official to “compare
the identifying information on the oath with the information
on file” and “compare the signature or mark on the oath with
the signature or mark” on file. Id. § 21-2-386(a)(1)(B). If
everything appears correct, the official certifies the ballot. Id.
But if there is a problem, such as a signature that does not
match, the official is to “write across the face of the envelope
‘Rejected.’ ” Id. § 21-2-386(a)(1)(C). The government must
then notify the voter of this rejection, and the voter may cure
the problem. Id.
In November 2019, the Democratic Party of Georgia,
the Democratic Senatorial Campaign Committee, and the
Democratic Congressional Campaign Committee challenged
Georgia's absentee ballot procedures as unconstitutional
under the First and Fourteenth Amendments. They sued
Secretary Raffensperger and members of the Board for
declaratory and injunctive relief. Secretary Raffensperger and
the Board maintained that the procedures were constitutional,
but they agreed to promulgate regulations to ensure uniform
practices across counties. In March 2020, the parties entered
into a settlement agreement and dismissed the suit.
*2 In the settlement agreement, Secretary Raffensperger
and the Board agreed to issue an Official Election Bulletin
regarding the review of signatures on absentee ballots. The
Bulletin instructed officials to review the voter's signature
with the following process:
If the registrar or absentee ballot clerk determines that the
voter's signature on the mail-in absentee ballot envelope
does not match any of the voter's signatures on file ...,
the registrar or absentee ballot clerk must seek review
from two other registrars, deputy registrars, or absentee
ballot clerks. A mail-in absentee ballot shall not be rejected
unless a majority of the registrars, deputy registrars, or
absentee ballot clerks reviewing the signature agree that the
signature does not match any of the voter's signatures on
file ....
Secretary Raffensperger and the Board also agreed to train
county election officials to follow this process.
This procedure has been in place for at least three elections
since March, including the general election on November 3,
2020. Over one million Georgians voted by absentee ballot
in the general election. No one challenged the settlement
agreement until the filing of this action. By then, the general

1115

election returns had been tallied and a statewide hand recount
of the presidential election results was underway.
On November 13, L. Lin Wood Jr. sued Secretary
Raffensperger and the members of the Board in the district
court. Wood alleged that he sued “in his capacity as a private
citizen.” He is a registered voter in Fulton County, Georgia,
and a donor to various 2020 Republican candidates. His
amended complaint alleged that the settlement agreement
violates state law. As a result, he contends, it violates
the Election Clause of Article I; the Electors Clause of
Article II; and the Equal Protection Clause of the Fourteenth
Amendment. See U.S. Const. art. I, § 4, cl. 1; id. art. II, § 1, cl.
2; id. amend. XIV, § 1. Wood also alleged that irregularities
in the hand recount violated his rights under the Due Process
Clause of the Fourteenth Amendment. Id. amend. XIV, § 1.
State law requires that such recounts be done in public view,
and it permits the Board to promulgate policies that facilitate
recounting. Ga. Code Ann. § 21-2-498(c)(4), (d). Secretary
Raffensperger directed county election officials to designate
viewing areas for members of the public and the news media
to observe the recount. He also permitted the Democratic and
Republican Parties to designate special recount monitors.
Wood alleged that officials ignored their own rules and
denied Wood and President Donald Trump's campaign
“meaningful access to observe and monitor the electoral
process.” Although Wood did not personally attempt to
observe or monitor the recount, he alleged that Secretary
Raffensperger and the Board violated his “vested interest in
being present and having meaningful access to observe and
monitor the electoral process to ensure that it is properly
administered ... and ... otherwise free, fair, and transparent.”
Wood submitted two affidavits from volunteer monitors. One
monitor stated that she was not allowed to enter the counting
area because there were too many monitors already present,
and she could not be sure from a distance whether the recount
was accurate. The other explained that the counting was
hard for her to follow and described what she thought were
possible tabulation errors.
*3 Wood moved for extraordinary relief. He asked that
the district court take one of three steps: prohibit Georgia
from certifying the results of the November election; prevent
it from certifying results that include “defective absentee
ballots, regardless of whether said ballots were cured”; or
declare the entire election defective and order the state to fix

Case
Filedto12/07/20
3 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

2

Wood v. Raffensperger, --- F.3d ---- (2020)

the problems caused by the settlement agreement. He also
sought greater access for Republican election monitors, both
at a new hand recount of the November election and in a
runoff election scheduled for January 5, 2021.
Wood's lawsuit faced a quickly approaching obstacle: Georgia
law requires the Secretary of State to certify its general
election results by 5:00 p.m. on the seventeenth day after
Election Day. Ga. Code Ann. § 21-2-499(b). And it requires
the Governor to certify Georgia's slate of presidential electors
by 5:00 p.m. on the eighteenth day after Election Day. Id.
Secretary Raffensperger's deadline was November 20, and
Governor Brian Kemp had a deadline of November 21.
To avoid these deadlines, Wood moved to bar officials from
certifying the election results until a court could consider
his lawsuit. His emergency motion reiterated many of the
requests from his amended complaint, including requests for
changes to the procedures for the January runoff. He also
submitted additional affidavits and declarations in support of
his motion.
The district court held a hearing on November 19 to consider
whether it should issue a temporary restraining order. It heard
from Wood, state officials, and two groups of intervenors.
Wood also introduced testimony from Susan Voyles, a
poll manager who participated in the hand recount. Voyles
described her experience during the recount. She recalled that
one batch of absentee ballots felt different from the rest, and
that that batch favored Joe Biden to an unusual extent. At
the end of the hearing, the district court orally denied Wood's
motion.
On November 20, the district court issued a written opinion
and order that explained its denial. It first ruled that Wood
lacked standing because he had alleged only generalized
grievances, instead of injuries that affected him in a personal
and individual way. It next explained that, even if Wood
had standing, the doctrine of laches prevented him from
challenging the settlement agreement now: he could have
sued eight months earlier, yet he waited until two weeks after
the election. Finally, it explained why Wood would not be
entitled to a temporary restraining order even if the district
court could reach the merits of his claims. On the same day,
Secretary Raffensperger certified the results of the general
election and Governor Kemp certified a slate of presidential
electors.

1116

II. STANDARD OF REVIEW
“We are required to examine our jurisdiction sua sponte,
and we review jurisdictional issues de novo.” United States
v. Lopez, 562 F.3d 1309, 1311 (11th Cir. 2009) (citation
omitted).

III. DISCUSSION
This appeal turns on one of the most fundamental principles
of the federal courts: our limited jurisdiction. Federal
courts are not “constituted as free-wheeling enforcers of
the Constitution and laws.” Initiative & Referendum Inst. v.
Walker, 450 F.3d 1082, 1087 (10th Cir. 2006) (en banc).
As the Supreme Court “ha[s] often explained,” we are
instead “courts of limited jurisdiction.” Home Depot U.S.A.,
Inc. v. Jackson, ––– U.S. ––––, 139 S. Ct. 1743, 1746,
204 L.Ed.2d 34 (2019) (internal quotation marks omitted).
Article III of the Constitution establishes that our jurisdiction
—that is, our judicial power—reaches only “Cases” and
“Controversies.” U.S. Const. art. III, § 2. Absent a justiciable
case or controversy between interested parties, we lack the
“power to declare the law.” Steel Co. v. Citizens for a Better
Env't, 523 U.S. 83, 94, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998).
*4 When someone sues in federal court, he bears the burden
of proving that his suit falls within our jurisdiction. Kokkonen
v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377, 114
S.Ct. 1673, 128 L.Ed.2d 391 (1994). Wood had the choice
to sue in state or federal court. Georgia law makes clear that
post-election litigation may proceed in a state court. Ga. Code
Ann. §§ 21-2-499(b), 21-2-524(a). But Wood chose to sue in
federal court. In doing so, he had to prove that his suit presents
a justiciable controversy under Article III of the Constitution.
See Flast v. Cohen, 392 U.S. 83, 95, 88 S.Ct. 1942, 20 L.Ed.2d
947 (1968) (listing examples of problems that preclude our
jurisdiction). He failed to satisfy this burden.
We divide our discussion in two parts. We first explain why
Wood lacks standing to sue. We then explain that, even if he
had standing, his requests to recount and delay certification
of the November election results are moot. Because this case
is not justiciable, we lack jurisdiction. Id. And because we
lack the power to entertain this appeal, we will not address
the other issues the parties raise.

Case
Filedto12/07/20
4 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

3

Wood v. Raffensperger, --- F.3d ---- (2020)

A. Wood Lacks Standing Because He Has Not Been Injured
in a Particularized Way.
Standing is a threshold jurisdictional inquiry: the elements of
standing are “an indispensable part of the plaintiff's case.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 561, 112 S.Ct.
2130, 119 L.Ed.2d 351 (1992). To prove standing, Wood
“must prove (1) an injury in fact that (2) is fairly traceable
to the challenged action of the defendant and (3) is likely to
be redressed by a favorable decision.” Jacobson v. Fla. Sec'y
of State, 974 F.3d 1236, 1245 (11th Cir. 2020). If he cannot
satisfy these requirements, then we may not decide the merits
of his appeal. Steel Co., 523 U.S. at 94, 118 S.Ct. 1003.
Wood lacks standing because he fails to allege the “first
and foremost of standing's three elements”: an injury in
fact. Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct.
1540, 1547, 194 L.Ed.2d 635 (2016) (alteration adopted)
(internal quotation marks omitted). An injury in fact is “an
invasion of a legally protected interest that is both concrete
and particularized and actual or imminent, not conjectural
or hypothetical.” Trichell v. Midland Credit Mgmt., Inc., 964
F.3d 990, 996 (11th Cir. 2020) (internal quotation marks
omitted). Wood's injury is not particularized.
Wood asserts only a generalized grievance. A particularized
injury is one that “affect[s] the plaintiff in a personal
and individual way.” Spokeo, 136 S. Ct. at 1548 (internal
quotation marks omitted). For example, if Wood were a
political candidate harmed by the recount, he would satisfy
this requirement because he could assert a personal, distinct
injury. Cf. Roe v. Alabama ex rel. Evans, 43 F.3d 574,
579 (11th Cir. 1995). But Wood bases his standing on his
interest in “ensur[ing that] ... only lawful ballots are counted.”
An injury to the right “to require that the government be
administered according to the law” is a generalized grievance.
Chiles v. Thornburgh, 865 F.2d 1197, 1205–06 (11th Cir.
1989) (alteration adopted) (internal quotation marks omitted).
And the Supreme Court has made clear that a generalized
grievance, “no matter how sincere,” cannot support standing.
Hollingsworth v. Perry, 570 U.S. 693, 706, 133 S.Ct. 2652,
186 L.Ed.2d 768 (2013).
A generalized grievance is “undifferentiated and common
to all members of the public.” Lujan, 504 U.S. at 575, 112
S.Ct. 2130 (internal quotation marks omitted). Wood cannot
explain how his interest in compliance with state election
laws is different from that of any other person. Indeed,

1117

he admits that any Georgia voter could bring an identical
suit. But the logic of his argument sweeps past even that
boundary. All Americans, whether they voted in this election
or whether they reside in Georgia, could be said to share
Wood's interest in “ensur[ing] that [a presidential election] is
properly administered.”
*5 Wood argues that he has two bases for standing, but
neither satisfies the requirement of a distinct, personal injury.
He first asserts that the inclusion of unlawfully processed
absentee ballots diluted the weight of his vote. To be sure, vote
dilution can be a basis for standing. Cf. Jacobson, 974 F.3d at
1247–48. But it requires a point of comparison. For example,
in the racial gerrymandering and malapportionment contexts,
vote dilution occurs when voters are harmed compared to
“irrationally favored” voters from other districts. See Baker
v. Carr, 369 U.S. 186, 207–08, 82 S.Ct. 691, 7 L.Ed.2d
663 (1962). By contrast, “no single voter is specifically
disadvantaged” if a vote is counted improperly, even if the
error might have a “mathematical impact on the final tally
and thus on the proportional effect of every vote.” Bognet
v. Sec'y Commonwealth of Pa., ––– F.3d ––––, ––––, 2020
WL 6686120, at *12 (3d Cir. Nov. 13, 2020) (internal
quotation marks omitted). Vote dilution in this context is
a “paradigmatic generalized grievance that cannot support
standing.” Id. (internal quotation marks omitted).
Wood's second theory—that Georgia “value[d] one person's
vote over that of another” through “arbitrary and disparate
treatment”—fares no better. He argues that Georgia treats
absentee voters as a “preferred class” compared to those who
vote in person, both by the terms of the settlement agreement
and in practice. In his view, all voters were bound by law
before the settlement agreement, but the rules for absentee
voting now run afoul of the law, while in-person voters remain
bound by the law. And he asserts that in practice Georgia
has favored absentee voters because there were “numerous
irregularities” in the processing and recounting of absentee
ballots. Setting aside the fact that “[i]t is an individual voter's
choice whether to vote by mail or in person,” Bognet, –––
F.3d at ––––, 2020 WL 6686120, at *15, these complaints
are generalized grievances. Even if we assume that absentee
voters are favored over in-person voters, that harm does not
affect Wood as an individual—it is instead shared identically
by the four million or so Georgians who voted in person
this November. “[W]hen the asserted harm is ... shared in
substantially equal measure by ... a large class of citizens,” it
is not a particularized injury. Warth v. Seldin, 422 U.S. 490,
499, 95 S.Ct. 2197, 45 L.Ed.2d 343 (1975). And irregularities

Case
Filedto12/07/20
5 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

4

Wood v. Raffensperger, --- F.3d ---- (2020)

in the tabulation of election results do not affect Wood
differently from any other person. His allegation, at bottom,
remains “that the law ... has not been followed.” Dillard v.
Chilton Cnty. Comm'n, 495 F.3d 1324, 1332 (11th Cir. 2007)
(quoting Lance v. Coffman, 549 U.S. 437, 442, 127 S.Ct. 1194,
167 L.Ed.2d 29 (2007)).
Wood's attempts to liken his injury to those we have found
sufficient in other appeals fall short. In Common Cause/
Georgia v. Billups, we ruled that “[r]equiring a registered
voter either to produce photo identification to vote in person
or to cast an absentee or provisional ballot is an injury
sufficient for standing.” 554 F.3d 1340, 1351–52 (11th Cir.
2009). But the injury there was the burden of producing
photo identification, not the existence of separate rules for inperson and absentee voters. Id. And the burden to produce
photo identification affected each voter in a personal way. For
example, some plaintiffs in Common Cause alleged that they
“would be required to make a special trip” to obtain valid
identification “that is not required of voters who have driver's
licenses or passports.” Id. at 1351 (internal quotation marks
omitted). By contrast, even Wood agrees that he is affected
by Georgia's alleged violations of the law in the same way as
every other Georgia voter. “This injury is precisely the kind
of undifferentiated, generalized grievance that the Supreme
Court has warned must not be countenanced.” Dillard, 495
F.3d at 1335 (internal quotation marks omitted).
Roe v. Alabama ex rel. Evans, 43 F.3d 574, also does not
support Wood's argument for standing. In Roe, we ruled that
the post-election inclusion of previously excluded absentee
ballots would violate the substantive-due-process rights of
Alabama voters and two political candidates. Id. at 579–81.
But no party raised and we did not address standing in Roe,
so that precedent provides no basis for Wood to establish
standing. Cf. Lewis v. Casey, 518 U.S. 343, 352 n.2, 116
S.Ct. 2174, 135 L.Ed.2d 606 (1996) (noting that in cases
where “standing was neither challenged nor discussed ...
the existence of unaddressed jurisdictional defects has no
precedential effect”). And Wood's purported injury is far
more general than the voters’ injury in Roe. The voters
in Roe bore individual burdens—to obtain notarization or
witness signatures if they wanted to vote absentee—that
state courts post-election retroactively permitted other voters
to ignore. Roe, 43 F.3d at 580–81. In contrast, Georgia
applied uniform rules, established before the election, to all
voters, who could choose between voting in person or by
absentee ballot, and Wood asserts that the effect of those rules

1118

harmed the electorate collectively. That alleged harm is not a
particularized injury.
*6 Wood suggested in his amended complaint that his status
as a donor contributed to standing and aligned his interests
with those of the Georgia Republican Party. But he forfeited
this argument when he failed to raise it in his opening brief.
Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324, 1335
(11th Cir. 2004); see also Nat'l All. for the Mentally Ill v.
Bd. of Cnty. Comm'rs, 376 F.3d 1292, 1296 (11th Cir. 2004)
(ruling standing claims forfeited for failure to comply with
the Federal Rules of Appellate Procedure). And the donor
argument fails on its own terms. True, a donor can establish
standing based on injuries that flow from his status as a donor.
See, e.g., Wilding v. DNC Servs. Corp., 941 F.3d 1116, 1125
(11th Cir. 2019). But donors, like voters, “have no judicially
enforceable interest in the outcome of an election.” Jacobson,
974 F.3d at 1246. Nor does a donation give the donor a legally
cognizable interest in the proper administration of elections.
Any injury to Wood based on election irregularities must flow
from his status as a voter, unrelated to his donations. And that
fact returns him to the stumbling block of particularization.
“[T]he ‘injury in fact’ test requires ... that the party seeking
review be himself among the injured.” Lujan, 504 U.S.
at 563, 112 S.Ct. 2130 (internal quotation marks omitted).
Wood's allegations suggest that various nonparties might have
a particularized injury. For example, perhaps a candidate
or political party would have standing to challenge the
settlement agreement or other alleged irregularities. Or
perhaps election monitors would have standing to sue if they
were denied access to the recount. But Wood cannot place
himself in the stead of these groups, even if he supports
them. Cf. Glanton ex rel. ALCOA Prescription Drug Plan
v. AdvancePCS Inc., 465 F.3d 1123, 1127 (9th Cir. 2006)
(explaining that “associational standing ... does not operate
in reverse,” so a member cannot represent an association).
He is at most a “concerned bystander.” Koziara v. City of
Casselberry, 392 F.3d 1302, 1305 (11th Cir. 2004) (internal
quotation marks omitted). So he is not “entitled to have the
court[s] decide the merits of [his] dispute.” Warth, 422 U.S.
at 498, 95 S.Ct. 2197.

B. Wood's Requested Relief Concerning the 2020 General
Election Is Moot.
Even if Wood had standing, several of his requests for relief
are barred by another jurisdictional defect: mootness. We are

Case
Filedto12/07/20
6 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

5

Wood v. Raffensperger, --- F.3d ---- (2020)

“not empowered to decide moot questions.” North Carolina v.
Rice, 404 U.S. 244, 246, 92 S.Ct. 402, 30 L.Ed.2d 413 (1971)
(internal quotation marks omitted). “An issue is moot when
it no longer presents a live controversy with respect to which
the court can give meaningful relief.” Christian Coal. of Fla.,
Inc. v. United States, 662 F.3d 1182, 1189 (11th Cir. 2011)
(alteration rejected) (internal quotation marks omitted). And
an issue can become moot at any stage of litigation, even if
there was a live case or controversy when the lawsuit began.
Id. at 1189–90.
Wood asked for several kinds of relief in his emergency
motion, but most of his requests pertained to the 2020
election results. He moved the district court to prohibit either
the certification of the election results or certification that
included the disputed absentee ballots. He also asked the
district court to order a new hand recount and to grant
Republican election monitors greater access during both
the recount and the January runoff election. But after the
district court denied Wood's motion, Secretary Raffensperger
certified the election results on November 20. And Governor
Kemp certified the slate of presidential electors later that day.
Because Georgia has already certified its results, Wood's
requests to delay certification and commence a new recount
are moot. “We cannot turn back the clock and create a world
in which” the 2020 election results are not certified. Fleming
v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015). And it is not
possible for us to delay certification nor meaningful to order
a new recount when the results are already final and certified.
Cf. Tropicana Prods. Sales, Inc. v. Phillips Brokerage Co.,
874 F.2d 1581, 1582 (11th Cir. 1989) (“[A]n appeal from the
denial of a motion for preliminary injunction is mooted when
the requested effective end-date for the preliminary injunction
has passed.”). Nor can we reconstrue Wood's previous request
that we temporarily prohibit certification into a new request
that we undo the certification. A district court “must first have
the opportunity to pass upon [every] issue,” so we may not
consider requests for relief made for the first time on appeal.
S.F. Residence Club, Inc. v. 7027 Old Madison Pike, LLC, 583
F.3d 750, 755 (11th Cir. 2009).
*7 Wood's arguments reflect a basic misunderstanding of
what mootness is. He argues that the certification does not
moot anything “because this litigation is ongoing” and he
remains injured. But mootness concerns the availability of
relief, not the existence of a lawsuit or an injury. Fla. Wildlife
Fed'n, Inc. v. S. Fla. Water Mgmt. Dist., 647 F.3d 1296, 1304
(11th Cir. 2011). So even if post-election litigation is not

1119

always mooted by certification, see, e.g., Siegel v. LePore,
234 F.3d 1163, 1172–73 (11th Cir. 2000) (en banc), Wood's
particular requests are moot. Wood is right that certification
does not moot his requests for relief concerning the 2021
runoff—although Wood's lack of standing still forecloses our
consideration of those requests—but the pendency of other
claims for relief cannot rescue the otherwise moot claims. See,
e.g., Adler v. Duval Cnty. Sch. Bd., 112 F.3d 1475, 1478–79,
1481 (11th Cir. 1997) (instructing the district court to dismiss
moot claims but resolving other claims on the merits). Wood
finally tells us that President Trump has also requested a
recount, but that fact is irrelevant to whether Wood's requests
remain live.
Nor does any exception to mootness apply. True, we often
review otherwise-moot election appeals because they are
“capable of repetition yet evading review.” ACLU v. The Fla.
Bar, 999 F.2d 1486, 1496 (11th Cir. 1993) (internal quotation
marks omitted). We may apply this exception when “(1) the
challenged action was in its duration too short to be fully
litigated prior to its cessation or expiration, and (2) there
was a reasonable expectation that the same complaining party
would be subjected to the same action again.” Nat'l Broad. Co.
v. Commc'ns Workers of Am., 860 F.2d 1022, 1023 (11th Cir.
1988) (quoting Weinstein v. Bradford, 423 U.S. 147, 149, 96
S.Ct. 347, 46 L.Ed.2d 350 (1975)). But we will not apply this
exception if there is “some alternative vehicle through which
a particular policy may effectively be subject to” complete
review. Bourgeois v. Peters, 387 F.3d 1303, 1308 (11th Cir.
2004).
The “capable of repetition yet evading review” exception
does not save Wood's appeal because there is no “reasonable
expectation” that Wood will again face the issues in this
appeal. Based on the posture of this appeal, the challenged
action is the denial of an emergency injunction against the
certification of election results. See Fleming, 785 F.3d at
446 (explaining that whether the issues in an interlocutory
appeal are “capable of repetition, yet evading review” is
a separate question from whether the issues in the overall
lawsuit are capable of doing so). That denial is the decision we
would review but for the jurisdictional problems. But Wood
cannot satisfy the requirement that there be a “reasonable
expectation” that he will again seek to delay certification.
Wood does not suggest that this situation might recur. Cf. FEC
v. Wis. Right To Life, Inc., 551 U.S. 449, 463–64, 127 S.Ct.
2652, 168 L.Ed.2d 329 (2007). And we have no reason to
think it would: he is a private citizen, so the possibility of a

Case
Filedto12/07/20
7 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

6

Wood v. Raffensperger, --- F.3d ---- (2020)

recurrence is purely theoretical. Cf. Hall v. Sec'y, Ala., 902
F.3d 1294, 1305 (11th Cir. 2018).

We AFFIRM the denial of Wood's motion for emergency
relief.
All Citations

IV. CONCLUSION

End of Document

1120

--- F.3d ----, 2020 WL 7094866
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
8 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-4

7

EXHIBIT 5

1121 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3295 Filed 12/07/20 Page 1 of 36

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD,
JAMES DAVID HOOPER, and
DAREN WADE RUBINGH,
Plaintiffs,
v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, and MICHIGAN
BOARD OF STATE CANVASSERS,

Civil Case No. 20-13134
Honorable Linda V. Parker

Defendants,
and
CITY OF DETROIT, DEMOCRATIC
NATIONAL COMMITTEE and
MICHIGAN DEMOCRATIC PARTY, and
ROBERT DAVIS,
Intervenor-Defendants.
___________________________________/
OPINION AND ORDER DENYING PLAINTIFFS’ “EMERGENCY
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF” (ECF NO. 7)
The right to vote is among the most sacred rights of our democracy and, in
turn, uniquely defines us as Americans. The struggle to achieve the right to vote is
1

1122 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3296 Filed 12/07/20 Page 2 of 36

one that has been both hard fought and cherished throughout our country’s history.
Local, state, and federal elections give voice to this right through the ballot. And
elections that count each vote celebrate and secure this cherished right.
These principles are the bedrock of American democracy and are widely
revered as being woven into the fabric of this country. In Michigan, more than 5.5
million citizens exercised the franchise either in person or by absentee ballot
during the 2020 General Election. Those votes were counted and, as of November
23, 2020, certified by the Michigan Board of State Canvassers (also “State
Board”). The Governor has sent the slate of Presidential Electors to the Archivist
of the United States to confirm the votes for the successful candidate.
Against this backdrop, Plaintiffs filed this lawsuit, bringing forth claims of
widespread voter irregularities and fraud in the processing and tabulation of votes
and absentee ballots. They seek relief that is stunning in its scope and breathtaking
in its reach. If granted, the relief would disenfranchise the votes of the more than
5.5 million Michigan citizens who, with dignity, hope, and a promise of a voice,
participated in the 2020 General Election. The Court declines to grant Plaintiffs
this relief.
I.

Background
In the weeks leading up to, and on, November 3, 2020, a record 5.5 million

Michiganders voted in the presidential election (“2020 General Election”). (ECF
2

1123 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3297 Filed 12/07/20 Page 3 of 36

No. 36-4 at Pg ID 2622.) Many of those votes were cast by absentee ballot. This
was due in part to the coronavirus pandemic and a ballot measure the Michigan
voters passed in 2018 allowing for no-reason absentee voting. When the polls
closed and the votes were counted, Former Vice President Joseph R. Biden, Jr. had
secured over 150,000 more votes than President Donald J. Trump in Michigan.
(Id.)
Michigan law required the Michigan State Board of Canvassers to canvass
results of the 2020 General Election by November 23, 2020. Mich. Comp. Laws
§ 168.842. The State Board did so by a 3-0 vote, certifying the results “for the
Electors of President and Vice President,” among other offices. (ECF No. 36-5 at
Pg ID 2624.) That same day, Governor Gretchen Whitmer signed the Certificates
of Ascertainment for the slate of electors for Vice President Biden and Senator
Kamala D. Harris. (ECF No. 36-6 at Pg ID 2627-29.) Those certificates were
transmitted to and received by the Archivist of the United States. (Id.)
Federal law provides that if election results are contested in any state, and if
the state, prior to election day, has enacted procedures to decide controversies or
contests over electors and electoral votes, and if these procedures have been
applied, and the decisions are made at least six days before the electors’ meetings,
then the decisions are considered conclusive and will apply in counting the
electoral votes. 3 U.S.C. § 5. This date (the “Safe Harbor” deadline) falls on
3

1124 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3298 Filed 12/07/20 Page 4 of 36

December 8, 2020. Under the federal statutory timetable for presidential elections,
the Electoral College must meet on “the first Monday after the second Wednesday
in December,” 3 U.S.C. § 7, which is December 14 this year.
Alleging widespread fraud in the distribution, collection, and counting of
ballots in Michigan, as well as violations of state law as to certain election
challengers and the manipulation of ballots through corrupt election machines and
software, Plaintiffs filed the current lawsuit against Defendants at 11:48 p.m. on
November 25, 2020—the eve of the Thanksgiving holiday. (ECF No. 1.)
Plaintiffs are registered Michigan voters and nominees of the Republican Party to
be Presidential Electors on behalf of the State of Michigan. (ECF No. 6 at Pg ID
882.) They are suing Governor Whitmer and Secretary of State Jocelyn Benson in
their official capacities, as well as the Michigan Board of State Canvassers.
On November 29, a Sunday, Plaintiffs filed a First Amended Complaint
(ECF No. 6), “Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief and Memorandum in Support Thereof” (ECF No. 7), and
Emergency Motion to Seal (ECF No. 8). In their First Amended Complaint,
Plaintiffs allege three claims pursuant to 42 U.S.C. § 1983: (Count I) violation of
the Elections and Electors Clauses; (Count II) violation of the Fourteenth
Amendment Equal Protection Clause; and, (Count III) denial of the Fourteenth

4

1125 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3299 Filed 12/07/20 Page 5 of 36

Amendment Due Process Clause. (ECF No. 6.) Plaintiffs also assert one count
alleging violations of the Michigan Election Code. (Id.)
By December 1, motions to intervene had been filed by the City of Detroit
(ECF No. 15), Robert Davis (ECF No. 12), and the Democratic National
Committee and Michigan Democratic Party (“DNC/MDP”) (ECF No. 14). On that
date, the Court entered a briefing schedule with respect to the motions. Plaintiffs
had not yet served Defendants with their pleading or emergency motions as of
December 1. Thus, on December 1, the Court also entered a text-only order to
hasten Plaintiffs’ actions to bring Defendants into the case and enable the Court to
address Plaintiffs’ pending motions. Later the same day, after Plaintiffs filed
certificates of service reflecting service of the summons and Amended Complaint
on Defendants (ECF Nos. 21), the Court entered a briefing schedule with respect to
Plaintiffs’ emergency motions, requiring response briefs by 8:00 p.m. on
December 2, and reply briefs by 8:00 p.m. on December 3 (ECF No. 24).
On December 2, the Court granted the motions to intervene. (ECF No. 28.)
Response and reply briefs with respect to Plaintiffs’ emergency motions were
thereafter filed. (ECF Nos. 29, 31, 32, 34, 35, 36, 37, 39, 49, 50.) Amicus curiae
Michigan State Conference NAACP subsequently moved and was granted leave to
file a brief in support of Defendants’ position. (ECF Nos. 48, 55.) Supplemental
briefs also were filed by the parties. (ECF Nos. 57, 58.)
5

1126 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3300 Filed 12/07/20 Page 6 of 36

In light of the limited time allotted for the Court to resolve Plaintiffs’
emergency motion for injunctive relief—which Plaintiffs assert “must be granted
in advance of December 8, 2020” (ECF No. 7 at Pg ID 1846)—the Court has
disposed of oral argument with respect to their motion pursuant to Eastern District
of Michigan Local Rule 7.1(f).1
II.

Standard of Review
A preliminary injunction is “an extraordinary remedy that may only be

awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008) (citation omitted). The plaintiff
bears the burden of demonstrating entitlement to preliminary injunctive relief.
Leary v. Daeschner, 228 F.3d 729, 739 (6th Cir. 2000). Such relief will only be
granted where “the movant carries his or her burden of proving that the
circumstances clearly demand it.” Overstreet v. Lexington-Fayette Urban Cnty.
Gov’t, 305 F.3d 566, 573 (6th Cir. 2002). “Evidence that goes beyond the
unverified allegations of the pleadings and motion papers must be presented to

“‘[W]here material facts are not in dispute, or where facts in dispute are not
material to the preliminary injunction sought, district courts generally need not
hold an evidentiary hearing.’” Nexus Gas Transmission, LLC v. City of Green,
Ohio, 757 Fed. Appx. 489, 496-97 (6th Cir. 2018) (quoting Certified Restoration
Dry Cleaning Network, LLC v. Tenke Corp., 511 F.3d 535, 553 (6th Cir. 2007))
(citation omitted).
1

6

1127 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3301 Filed 12/07/20 Page 7 of 36

support or oppose a motion for a preliminary injunction.” 11A Mary Kay Kane,
Fed. Prac. & Proc. § 2949 (3d ed.).
Four factors are relevant in deciding whether to grant preliminary injunctive
relief: “‘(1) whether the movant has a strong likelihood of success on the merits;
(2) whether the movant would suffer irreparable injury absent the injunction; (3)
whether the injunction would cause substantial harm to others; and (4) whether the
public interest would be served by the issuance of an injunction.’” Daunt v.
Benson, 956 F.3d 396, 406 (6th Cir. 2020) (quoting Bays v. City of Fairborn, 668
F.3d 814, 818-19 (6th Cir. 2012)). “At the preliminary injunction stage, ‘a plaintiff
must show more than a mere possibility of success,’ but need not ‘prove his case in
full.’” Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d 580, 591 (6th Cir. 2012)
(quoting Certified Restoration Dry Cleaning Network, LLC v. Tenke Corp., 511
F.3d 535, 543 (6th Cir. 2007)). Yet, “the proof required for the plaintiff to obtain a
preliminary injunction is much more stringent than the proof required to survive a
summary judgment motion ….” Leary, 228 F.3d at 739.
III.

Discussion
The Court begins by discussing those questions that go to matters of subject

matter jurisdiction or which counsel against reaching the merits of Plaintiffs’
claims. While the Court finds that any of these issues, alone, indicate that
Plaintiffs’ motion should be denied, it addresses each to be thorough.
7

1128 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3302 Filed 12/07/20 Page 8 of 36

A.

Eleventh Amendment Immunity

The Eleventh Amendment to the United States Constitution provides:
The judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
U.S. Const. amend. XI. This immunity extends to suits brought by citizens against
their own states. See, e.g., Ladd v. Marchbanks, 971 F.3d 574, 578 (6th Cir. 2020)
(citing Hans v. Louisiana, 134 U.S. 1, 18-19 (1890)). It also extends to suits
against state agencies or departments, Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 100 (1984) (citations omitted), and “suit[s] against state officials
when ‘the state is the real, substantial party in interest[,]’” id. at 101 (quoting Ford
Motor Co. v. Dep’t of Treasury, 323 U.S. 459, 464 (1945)).
A suit against a State, a state agency or its department, or a state official is in
fact a suit against the State and is barred “regardless of the nature of the relief
sought.” Pennhurst State Sch. & Hosp., 465 U.S. at 100-02 (citations omitted).
“‘The general rule is that a suit is against the sovereign if the judgment sought
would expend itself on the public treasury or domain, or interfere with the public
administration, or if the effect of the judgment would be to restrain the
Government from acting, or to compel it to act.’” Id. at 101 n.11 (quoting Dugan
v. Rank, 372 U.S. 609, 620 (1963)) (internal quotation marks omitted).
8

1129 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3303 Filed 12/07/20 Page 9 of 36

Eleventh Amendment immunity is subject to three exceptions: (1)
congressional abrogation; (2) waiver by the State; and (3) “a suit against a state
official seeking prospective injunctive relief to end a continuing violation of
federal law.” See Carten v. Kent State Univ., 282 F.3d 391, 398 (6th Cir. 2002)
(citations omitted). Congress did not abrogate the States’ sovereign immunity
when it enacted 42 U.S.C. § 1983. Will v. Mich. Dep’t of State Police, 491 U.S.
58, 66 (1989). “The State of Michigan has not consented to being sued in civil
rights actions in the federal courts.” Johnson v. Unknown Dellatifa, 357 F.3d 539,
545 (6th Cir. 2004) (citing Abick v. Michigan, 803 F.2d 874, 877 (6th Cir. 1986)).
The Eleventh Amendment therefore bars Plaintiffs’ claims against the Michigan
Board of State Canvassers. See McLeod v. Kelly, 7 N.W.2d 240, 242 (Mich. 1942)
(“The board of State canvassers is a State agency …”); see also Deleeuw v. State
Bd. of Canvassers, 688 N.W.2d 847, 850 (Mich. Ct. App. 2004). Plaintiffs’ claims
are barred against Governor Whitmer and Secretary Benson unless the third
exception applies.
The third exception arises from the Supreme Court’s decision in Ex parte
Young, 209 U.S. 123 (1908). But as the Supreme Court has advised:
To interpret Young to permit a federal-court action to
proceed in every case where prospective declaratory and
injunctive relief is sought against an officer, named in his
individual capacity, would be to adhere to an empty
formalism and to undermine the principle … that
Eleventh Amendment immunity represents a real
9

1130 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3304 Filed 12/07/20 Page 10 of 36

limitation on a federal court’s federal-question
jurisdiction. The real interests served by the Eleventh
Amendment are not to be sacrificed to elementary
mechanics of captions and pleading. Application of the
Young exception must reflect a proper understanding of
its role in our federal system and respect for state courts
instead of a reflexive reliance on an obvious fiction.
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261, 270 (1997). Further, “the
theory of Young has not been provided an expansive interpretation.” Pennhurst
State Sch. & Hosp., 465 U.S. at 102. “‘In determining whether the doctrine of Ex
parte Young avoids an Eleventh Amendment bar to suit, a court need only conduct
a straightforward inquiry into whether [the] complaint alleges an ongoing violation
of federal law and seeks relief properly characterized as prospective.’” Verizon
Md., Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 645 (2002) (quoting Coeur d’Alene
Tribe of Idaho, 521 U.S. 296 (O’Connor, J., concurring)).
Ex parte Young does not apply, however, to state law claims against state
officials, regardless of the relief sought. Pennhurst State Sch. & Hosp., 465 U.S. at
106 (“A federal court’s grant of relief against state officials on the basis of state
law, whether prospective or retroactive, does not vindicate the supreme authority
of federal law. On the contrary, it is difficult to think of a greater intrusion on state
sovereignty than when a federal court instructs state officials on how to conform
their conduct to state law.”); see also In re Ohio Execution Protocol Litig., 709 F.
App’x 779, 787 (6th Cir. 2017) (“If the plaintiff sues a state official under state law
10

1131 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3305 Filed 12/07/20 Page 11 of 36

in federal court for actions taken within the scope of his authority, sovereign
immunity bars the lawsuit regardless of whether the action seeks monetary or
injunctive relief.”). Unquestionably, Plaintiffs’ state law claims against
Defendants are barred by Eleventh Amendment immunity.
The Court then turns its attention to Plaintiffs’ § 1983 claims against
Defendants. Defendants and Intervenor DNC/MDP contend that these claims are
not in fact federal claims as they are premised entirely on alleged violations of
state law. (ECF No. 31 at Pg ID 2185 (“Here, each count of Plaintiffs’
complaint—even Counts I, II, and III, which claim to raise violations of federal
law—is predicated on the election being conducted contrary to Michigan law.”);
ECF No. 36 at Pg ID 2494 (“While some of [Plaintiffs’] allegations concern
fantastical conspiracy theories that belong more appropriately in the fact-free outer
reaches of the Internet[,] … what Plaintiffs assert at bottom are violations of the
Michigan Election Code.”) Defendants also argue that even if properly stated as
federal causes of action, “it is far from clear whether Plaintiffs’ requested
injunction is actually prospective in nature, as opposed to retroactive.” (ECF No.
31 at Pg ID 2186.)
The latter argument convinces this Court that Ex parte Young does not
apply. As set forth earlier, “‘[i]n order to fall with the Ex parte Young exception, a
claim must seek prospective relief to end a continuing violation of federal law.’”
11

1132 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3306 Filed 12/07/20 Page 12 of 36

Russell v. Lundergan-Grimes, 784 F.3d 1037, 1047 (6th Cir. 2015) (quoting Diaz
v. Mich. Dep’t of Corr., 703 F.3d 956, 964 (6th Cir. 2013)). Unlike Russell, which
Plaintiffs cite in their reply brief, this is not a case where a plaintiff is seeking to
enjoin the continuing enforcement of a statute that is allegedly unconstitutional.
See id. at 1044, 1047 (plaintiff claimed that Kentucky law creating a 300-foot nopolitical-speech buffer zone around polling location violated his free-speech
rights). Instead, Plaintiffs are seeking to undo what has already occurred, as their
requested relief reflects.2 (See ECF No. 7 at Pg ID 1847; see also ECF No. 6 at Pg
955-56.)
Before this lawsuit was filed, the Michigan Board of State Canvassers had
already certified the election results and Governor Whitmer had transmitted the
State’s slate of electors to the United States Archivist. (ECF Nos. 31-4, 31-5.)
There is no continuing violation to enjoin. See Rios v. Blackwell, 433 F. Supp. 2d
848 (N.D. Ohio Feb. 7, 2006); see also King Lincoln Bronzeville Neighborhood
Ass’n v. Husted, No. 2:06-cv-00745, 2012 WL 395030, at *4-5 (S.D. Ohio Feb. 7,
2012); cf. League of Women Voters of Ohio v. Brunner, 548 F.3d 463, 475 (6th Cir.
2008) (finding that the plaintiff’s claims fell within the Ex parte Young doctrine

To the extent Plaintiffs ask the Court to certify the results in favor of President
Donald J. Trump, such relief is beyond its powers.
12
2

1133 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3307 Filed 12/07/20 Page 13 of 36

where it alleged that the problems that plagued the election “are chronic and will
continue absent injunctive relief”).
For these reasons, the Court concludes that the Eleventh Amendment bars
Plaintiffs’ claims against Defendants.
B.

Mootness

This case represents well the phrase: “this ship has sailed.” The time has
passed to provide most of the relief Plaintiffs request in their Amended Complaint;
the remaining relief is beyond the power of any court. For those reasons, this
matter is moot.
“‘Under Article III of the Constitution, federal courts may adjudicate only
actual, ongoing cases or controversies.’” Kentucky v. U.S. ex rel. Hagel, 759 F.3d
588, 595 (6th Cir. 2014) (quoting Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477
(1990)). A case may become moot “when the issues presented are no longer live
or the parties lack a legally cognizable interest in the outcome.” U.S. Parole
Comm’n v. Geraghty, 445 U.S. 388, 396, 410 (1980) (internal quotation marks and
citation omitted). Stated differently, a case is moot where the court lacks “the
ability to give meaningful relief[.]” Sullivan v. Benningfield, 920 F.3d 401, 410
(6th Cir. 2019). This lawsuit was moot well before it was filed on November 25.
In their prayer for relief, Plaintiffs ask the Court to: (a) order Defendants to
decertify the results of the election; (b) enjoin Secretary Benson and Governor
13

1134 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3308 Filed 12/07/20 Page 14 of 36

Whitmer from transmitting the certified election results to the Electoral College;
(c) order Defendants “to transmit certified election results that state that President
Donald Trump is the winner of the election”; (d) impound all voting machines and
software in Michigan for expert inspection; (e) order that no votes received or
tabulated by machines not certified as required by federal and state law be counted;
and, (f) enter a declaratory judgment that mail-in and absentee ballot fraud must be
remedied with a manual recount or statistically valid sampling.3 (ECF No. 6 at Pg
ID 955-56, ¶ 233.) What relief the Court could grant Plaintiffs is no longer
available.
Before this lawsuit was filed, all 83 counties in Michigan had finished
canvassing their results for all elections and reported their results for state office
races to the Secretary of State and the Michigan Board of State Canvassers in
accordance with Michigan law. See Mich. Comp. Laws § 168.843. The State
Board had certified the results of the 2020 General Election and Governor
Whitmer had submitted the slate of Presidential Electors to the Archivists. (ECF

Plaintiffs also seek an order requiring the impoundment of all voting machines
and software in Michigan for expert inspection and the production of security
camera footage from the TCF Center for November 3 and 4. (ECF No. 6 at Pg ID
956, ¶ 233.) This requested relief is not meaningful, however, where the remaining
requests are no longer available. In other words, the evidence Plaintiffs seek to
gather by inspecting voting machines and software and security camera footage
only would be useful if an avenue remained open for them to challenge the election
results.
14
3

1135 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3309 Filed 12/07/20 Page 15 of 36

No. 31-4 at Pg ID 2257-58; ECF No. 31-5 at Pg ID 2260-63.) The time for
requesting a special election based on mechanical errors or malfunctions in voting
machines had expired. See Mich. Comp. Laws §§ 168.831, 168.832 (petitions for
special election based on a defect or mechanical malfunction must be filed “no
later than 10 days after the date of the election”). And so had the time for
requesting a recount for the office of President. See Mich. Comp. Laws § 168.879.
The Michigan Election Code sets forth detailed procedures for challenging
an election, including deadlines for doing so. Plaintiffs did not avail themselves of
the remedies established by the Michigan legislature. The deadline for them to do
so has passed. Any avenue for this Court to provide meaningful relief has been
foreclosed. As the Eleventh Circuit Court of Appeals recently observed in one of
the many other post-election lawsuits brought to specifically overturn the results of
the 2020 presidential election:
“We cannot turn back the clock and create a world in
which” the 2020 election results are not certified.
Fleming v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015).
And it is not possible for us to delay certification nor
meaningful to order a new recount when the results are
already final and certified.
Wood v. Raffensperger, -- F.3d -- , 2020 WL 7094866 (11th Cir. Dec. 5, 2020).
And as one Justice of the Supreme Court of Pennsylvania advised in another 2020
post-election lawsuit: “there is no basis in law by which the courts may grant
Petitioners’ request to ignore the results of an election and recommit the choice to
15

1136 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3310 Filed 12/07/20 Page 16 of 36

the General Assembly to substitute its preferred slate of electors for the one chosen
by a majority of Pennsylvania’s voters.” Kelly v. Commonwealth, No. 68 MAP
2020, 2020 WL 7018314, at *3 (Pa. Nov. 28, 2020) (Wecht, J., concurring); see
also Wood v. Raffensperger, No. 1:20-cv-04651, 2020 WL 6817513, at *13 (N.D.
Ga. Nov. 20, 2020) (concluding that “interfer[ing] with the result of an election
that has already concluded would be unprecedented and harm the public in
countless ways”).
In short, Plaintiffs’ requested relief concerning the 2020 General Election is
moot.
C.

Laches

Defendants argue that Plaintiffs are unlikely to succeed on the merits
because they waited too long to knock on the Court’s door. (ECF No. 31 at Pg ID
2175-79; ECF No. 39 at Pg ID 2844.) The Court agrees.
The doctrine of laches is rooted in the principle that “equity aids the vigilant,
not those who slumber on their rights.” Lucking v. Schram, 117 F.2d 160, 162 (6th
Cir. 1941); see also United States v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 9
(2008) (“A constitutional claim can become time-barred just as any other claim
can.”). An action may be barred by the doctrine of laches if: (1) the plaintiff
delayed unreasonably in asserting his rights and (2) the defendant is prejudiced by
this delay. Brown-Graves Co. v. Central States, Se. and Sw. Areas Pension Fund,
16

1137 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3311 Filed 12/07/20 Page 17 of 36

206 F.3d 680, 684 (6th Cir. 2000); Ottawa Tribe of Oklahoma v. Logan, 577 F.3d
634, 639 n.6 (6th Cir. 2009) (“Laches arises from an extended failure to exercise a
right to the detriment of another party.”). Courts apply laches in election cases.
Detroit Unity Fund v. Whitmer, 819 F. App’x 421, 422 (6th Cir. 2020) (holding
that the district court did not err in finding plaintiff’s claims regarding deadline for
local ballot initiatives “barred by laches, considering the unreasonable delay on the
part of [p]laintiffs and the consequent prejudice to [d]efendants”). Cf. Benisek v.
Lamone, 138 S. Ct. 1942, 1944 (2018) (“[A] party requesting a preliminary
injunction must generally show reasonable diligence. That is as true in election law
cases as elsewhere.”).
First, Plaintiffs showed no diligence in asserting the claims at bar. They
filed the instant action on November 25—more than 21 days after the 2020
General Election—and served it on Defendants some five days later on December
1. (ECF Nos. 1, 21.) If Plaintiffs had legitimate claims regarding whether the
treatment of election challengers complied with state law, they could have brought
their claims well in advance of or on Election Day—but they did not. Michigan’s
83 Boards of County Canvassers finished canvassing by no later than November
17 and, on November 23, both the Michigan Board of State Canvassers and
Governor Whitmer certified the election results. Mich. Comp. Laws §§ 168.822,
168.842.0. If Plaintiffs had legitimate claims regarding the manner by which
17

1138 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3312 Filed 12/07/20 Page 18 of 36

ballots were processed and tabulated on or after Election Day, they could have
brought the instant action on Election Day or during the weeks of canvassing that
followed—yet they did not. Plaintiffs base the claims related to election machines
and software on “expert and fact witness” reports discussing “glitches” and other
alleged vulnerabilities that occurred as far back as 2010. (See e.g., ECF No. 6 at
Pg ID 927-933, ¶¶ 157(C)-(E), (G), 158, 160, 167.) If Plaintiffs had legitimate
concerns about the election machines and software, they could have filed this
lawsuit well before the 2020 General Election—yet they sat back and did nothing.
Plaintiffs proffer no persuasive explanation as to why they waited so long to
file this suit. Plaintiffs concede that they “would have preferred to file sooner, but
[] needed some time to gather statements from dozens of fact witnesses, retain and
engage expert witnesses, and gather other data supporting their Complaint.” (ECF
No. 49 at Pg ID 3081.) But according to Plaintiffs themselves, “[m]anipulation of
votes was apparent shortly after the polls closed on November 3, 2020.” (ECF No.
7 at Pg ID 1837 (emphasis added).) Indeed, where there is no reasonable
explanation, there can be no true justification. See Crookston v. Johnson, 841 F.3d
396, 398 (6th Cir. 2016) (identifying the “first and most essential” reason to issue a
stay of an election-related injunction is plaintiff offering “no reasonable
explanation for waiting so long to file this action”). Defendants satisfy the first
element of their laches defense.
18

1139 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3313 Filed 12/07/20 Page 19 of 36

Second, Plaintiffs’ delay prejudices Defendants. See Kay v. Austin, 621 F.2d
809, 813 (6th Cir. 1980) (“As time passes, the state’s interest in proceeding with
the election increases in importance as resources are committed and irrevocable
decisions are made, and the candidate’s claim to be a serious candidate who has
received a serious injury becomes less credible by his having slept on his rights.”)
This is especially so considering that Plaintiffs’ claims for relief are not merely
last-minute—they are after the fact. While Plaintiffs delayed, the ballots were cast;
the votes were counted; and the results were certified. The rationale for
interposing the doctrine of laches is now at its peak. See McDonald v. Cnty. of San
Diego, 124 F. App’x 588 (9th Cir. 2005) (citing Soules v. Kauaians for Nukolii
Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988)); Soules, 849 F.2d at 1180
(quoting Hendon v. N.C. State Bd. Of Elections, 710 F.2d 177, 182 (4th Cir. 1983))
(applying doctrine of laches in post-election lawsuit because doing otherwise
would, “permit, if not encourage, parties who could raise a claim to lay by and
gamble upon receiving a favorable decision of the electorate and then, upon losing,
seek to undo the ballot results in a court action”).
Plaintiffs could have lodged their constitutional challenges much sooner than
they did, and certainly not three weeks after Election Day and one week after
certification of almost three million votes. The Court concludes that Plaintiffs’
delay results in their claims being barred by laches.
19

1140 Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3314 Filed 12/07/20 Page 20 of 36

D.

Abstention

As outlined in several filings, when the present lawsuit was filed on
November 25, 2020, there already were multiple lawsuits pending in Michigan
state courts raising the same or similar claims alleged in Plaintiffs’ Amended
Complaint. (See, e.g., ECF No. 31 at Pg ID 2193-98 (summarizing five state court
lawsuits challenging President Trump’s defeat in Michigan’s November 3, 2020
General Election).) Defendants and the City of Detroit urge the Court to abstain
from deciding Plaintiffs’ claims in deference to those proceedings under various
abstention doctrines. (Id. at Pg ID 2191-2203; ECF No. 39 at Pg ID 2840-44.)
Defendants rely on the abstention doctrine outlined by the Supreme Court in
Colorado River Water Conservation District v. United States, 424 U.S. 800 (1976).
The City of Detroit relies on the abstention doctrines outlined in Colorado River,
as well as those set forth in Railroad Commission of Texas v. Pullman Co., 312
U.S. 496, 500-01 (1941), and Burford v. Sun Oil Co., 319 U.S. 315 (1943). The
City of Detroit maintains that abstention is particularly appropriate when resolving
election disputes in light of the autonomy provided to state courts to initially settle
such disputes.
The abstention doctrine identified in Colorado River permits a federal court
to abstain from exercising jurisdiction over a matter in deference to parallel statecourt proceedings. Colorado River, 424 U.S. at 813, 817. The exception is found
20

1141 Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3315 Filed 12/07/20 Page 21 of 36

warranted “by considerations of ‘proper constitutional adjudication,’ ‘regard for
federal-state relations,’ or ‘wise judicial administration.’” Quackenbush v. Allstate
Ins. Co., 517 U.S. 706, 716 (1996) (quoting Colorado River, 424 U.S. at 817). The
Sixth Circuit has identified two prerequisites for abstention under this doctrine.
Romine v. Compuserve Corp., 160 F.3d 337, 339-40 (6th Cir. 1998).
First, the court must determine that the concurrent state and federal actions
are parallel. Id. at 339. Second, the court must consider the factors outlined by the
Supreme Court in Colorado River and subsequent cases:
(1) whether the state court has assumed jurisdiction over
any res or property; (2) whether the federal forum is less
convenient to the parties; (3) avoidance of piecemeal
litigation; … (4) the order in which jurisdiction was
obtained; … (5) whether the source of governing law is
state or federal; (6) the adequacy of the state court action
to protect the federal plaintiff’s rights; (7) the relative
progress of the state and federal proceedings; and (8) the
presence or absence of concurrent jurisdiction.
Romine, 160 F.3d at 340-41 (internal citations omitted). “These factors, however,
do not comprise a mechanical checklist. Rather, they require ‘a careful balancing
of the important factors as they apply in a give[n] case’ depending on the particular
facts at hand.” Id. (quoting Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 16 (1983)).
As summarized in Defendants’ response brief and reflected in their exhibits
(see ECF No. 31 at Pg ID 2193-97; see also ECF Nos. 31-7, 31-9, 31-11, 31-12,
21

1142 Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3316 Filed 12/07/20 Page 22 of 36

31-14), the allegations and claims in the state court proceedings and the pending
matter are, at the very least, substantially similar, Romine, 160 F.3d at 340 (“Exact
parallelism is not required; it is enough if the two proceedings are substantially
similar.” (internal quotation marks and citation omitted)). A careful balancing of
the factors set forth by the Supreme Court counsel in favor of deferring to the
concurrent jurisdiction of the state courts.
The first and second factor weigh against abstention. Id. (indicating that the
weight is against abstention where no property is at issue and neither forum is
more or less convenient). While the Supreme Court has stated that “‘the presence
of federal law issues must always be a major consideration weighing against
surrender of federal jurisdiction in deference to state proceedings[,]’” id. at 342
(quoting Moses H. Cone, 460 U.S. at 26), this “‘factor has less significance where
the federal courts’ jurisdiction to enforce the statutory rights in question is
concurrent with that of the state courts.’”4 Id. (quoting Moses H. Cone, 460 U.S. at
25). Moreover, the Michigan Election Code seems to dominate even Plaintiffs’
federal claims. Further, the remaining factors favor abstention.
“Piecemeal litigation occurs when different courts adjudicate the identical
issue, thereby duplicating judicial effort and potentially rendering conflicting

State courts have concurrent jurisdiction over § 1983 actions. Felder v. Casey,
487 U.S. 131, 139 (1988).
22

4

1143 Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3317 Filed 12/07/20 Page 23 of 36

results.” Id. at 341. The parallel proceedings are premised on similar factual
allegations and many of the same federal and state claims. The state court
proceedings were filed well before the present matter and at least three of those
matters are far more advanced than this case. Lastly, as Congress conferred
concurrent jurisdiction on state courts to adjudicate § 1983 claims, Felder v. Casey,
487 U.S. 131, 139 (1988), “[t]here can be no legitimate contention that the
[Michigan] state courts are incapable of safeguarding [the rights protected under
this statute],” Romine, 160 F.3d at 342.
For these reasons, abstention is appropriate under the Colorado River
doctrine. The Court finds it unnecessary to decide whether abstention is
appropriate under other doctrines.
E.

Standing

Under Article III of the United States Constitution, federal courts can
resolve only “cases” and “controversies.” U.S. Const. art. III § 2. The case-orcontroversy requirement is satisfied only where a plaintiff has standing to bring
suit. See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016), as revised (May 24,
2016). Each plaintiff must demonstrate standing for each claim he seeks to press.5
Plaintiffs assert a due process claim in their Amended Complaint and twice state
in their motion for injunctive relief that Defendants violated their due process
rights. (See ECF No. 7 at Pg ID 1840, 1844.) Plaintiffs do not pair either
statement with anything the Court could construe as a developed argument. (Id.)
The Court finds it unnecessary, therefore, to further discuss the due process claim.
23
5

1144 Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3318 Filed 12/07/20 Page 24 of 36

DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006) (citation omitted) (“[A]
plaintiff must demonstrate standing separately for each form of relief sought.”).
To establish standing, a plaintiff must show that: (1) he has suffered an injury in
fact that is “concrete and particularized” and “actual or imminent”; (2) the injury is
“fairly . . . trace[able] to the challenged action of the defendant”; and (3) it is
“likely, as opposed to merely speculative, that the injury will be redressed by a
favorable decision.” Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-62 (1992)
(internal quotation marks and citations omitted).
1.

Equal Protection Claim

Plaintiffs allege that Defendants engaged in “several schemes” to, among
other things, “destroy,” “discard,” and “switch” votes for President Trump, thereby
“devalu[ing] Republican votes” and “diluting” the influence of their individual
votes. (ECF No. 49 at Pg ID 3079.) Plaintiffs contend that “the vote dilution
resulting from this systemic and illegal conduct did not affect all Michigan voters
equally; it had the intent and effect of inflating the number of votes for Democratic
candidates and reducing the number of votes for President Trump and Republican
candidates.” (ECF No. 49 at Pg ID 3079.) Even assuming that Plaintiffs establish

McPherson v. Kelsey, 125 F.3d 989, 995 (6th Cir. 1997) (“Issues adverted to in a
perfunctory manner, unaccompanied by some effort at developed argumentation,
are deemed waived.”).
24

1145 Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3319 Filed 12/07/20 Page 25 of 36

injury-in-fact and causation under this theory,6 their constitutional claim cannot
stand because Plaintiffs fall flat when attempting to clear the hurdle of
redressability.
Plaintiffs fail to establish that the alleged injury of vote-dilution can be
redressed by a favorable decision from this Court. Plaintiffs ask this Court to decertify the results of the 2020 General Election in Michigan. But an order decertifying the votes of approximately 2.8 million people would not reverse the
dilution of Plaintiffs’ vote. To be sure, standing is not “dispensed in gross: A
plaintiff’s remedy must be tailored to redress the plaintiff’s particular injury.” Gill,
138 S. Ct. at 1934 (citing Cuno, 547 U.S. at 353); Cuno, 547 U.S. at 353 (“The
remedy must of course be limited to the inadequacy that produced the injury in fact
that the plaintiff has established.” (quoting Lewis v. Casey, 518 U.S. 343, 357
(1996)). Plaintiffs’ alleged injury does not entitle them to seek their requested
remedy because the harm of having one’s vote invalidated or diluted is not
remedied by denying millions of others their right to vote. Accordingly, Plaintiffs
have failed to show that their injury can be redressed by the relief they seek and
thus possess no standing to pursue their equal protection claim.

To be clear, the Court does not find that Plaintiffs satisfy the first two elements of
the standing inquiry.
25
6

1146 Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3320 Filed 12/07/20 Page 26 of 36

2.

Elections Clause & Electors Clause Claims

The provision of the United States Constitution known as the Elections
Clause states in part: “The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in each State by the Legislature
thereof[.]” U.S. Const. art. I, § 4, cl. 1. “The Elections Clause effectively gives
state governments the ‘default’ authority to regulate the mechanics of federal
elections, Foster v. Love, 522 U.S. 67, 69, 118 S. Ct. 464, 139 L.Ed.2d 369 (1997),
with Congress retaining ‘exclusive control’ to ‘make or alter’ any state’s
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S. Ct. 1198, 90 L.Ed. 1432
(1946).” Bognet, 2020 WL 6686120, *1. The “Electors Clause” of the
Constitution states: “Each State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors ….” U.S. Const. art. II, § 1, cl. 2.
Plaintiffs argue that, as “nominees of the Republican Party to be Presidential
Electors on behalf of the State of Michigan, they have standing to allege violations
of the Elections Clause and Electors Clause because “a vote for President Trump
and Vice-President Pence in Michigan … is a vote for each Republican elector[],
and … illegal conduct aimed at harming candidates for President similarly injures
Presidential Electors.” (ECF No. 7 at Pg ID 1837-38; ECF No. 49 at Pg ID 307678.)

26

1147 Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3321 Filed 12/07/20 Page 27 of 36

But where, as here, the only injury Plaintiffs have alleged is that the
Elections Clause has not been followed, the United States Supreme Court has made
clear that “[the] injury is precisely the kind of undifferentiated, generalized
grievance about the conduct of government that [courts] have refused to
countenance.”7 Lance v. Coffman, 549 U.S. 437, 442 (2007). Because Plaintiffs
“assert no particularized stake in the litigation,” Plaintiffs fail to establish injuryin-fact and thus standing to bring their Elections Clause and Electors Clause
claims. Id.; see also Johnson v. Bredesen, 356 F. App’x 781, 784 (6th Cir. 2009)
(citing Lance, 549 U.S. at 441-42) (affirming district court’s conclusion that
citizens did not allege injury-in-fact to support standing for claim that the state of
Tennessee violated constitutional law).

Although separate constitutional provisions, the Electors Clause and Elections
Clause share “considerable similarity,” Ariz. State Leg. v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 839, (2015) (Roberts, C.J., dissenting), and Plaintiffs do
not at all distinguish the two clauses in their motion for injunctive relief or reply
brief (ECF No. 7; ECF No. 49 at Pg ID 3076-78). See also Bognet v. Sec’y
Commonwealth of Pa., No. 20-3214, 2020 WL 6686120, at *7 (3d Cir. Nov. 13,
2020) (applying same test for standing under both Elections Clause and Electors
Clause); Wood, 2020 WL 6817513, at *1 (same); Foster, 522 U.S. at 69
(characterizing Electors Clause as Elections Clauses’ “counterpart for the
Executive Branch”); U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 804-05
(1995) (noting that state’s “duty” under Elections Clause “parallels the duty”
described by Electors Clause).
7

27

1148 Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3322 Filed 12/07/20 Page 28 of 36

This is so because the Elections Clause grants rights to “the Legislature” of
“each State.” U.S. Const. art. I, § 4, cl. 1. The Supreme Court interprets the words
“the Legislature,” as used in that clause, to mean the lawmaking bodies of a state.
Ariz. State Legislature, 135 S.Ct. at 2673. The Elections Clause, therefore, grants
rights to state legislatures and to other entities to which a State may delegate
lawmaking authority. See id. at 2668. Plaintiffs’ Elections Clause claims thus
belong, if to anyone, Michigan’s state legislature. Bognet v. Secy. Commonwealth
of Pa., -- F.3d. --, 2020 WL 6686120, *7 (3d Cir. Nov. 13, 2020). Plaintiffs here
are six presidential elector nominees; they are not a part of Michigan’s lawmaking
bodies nor do they have a relationship to them.
To support their contention that they have standing, Plaintiffs point to
Carson v. Simon, 78 F.3d 1051 (8th Cir. 2020), a decision finding that electors had
standing to bring challenges under the Electors Clause. (ECF No. 7 at Pg ID 1839
(citing Carson, 978 F.3d at 1057).) In that case, which was based on the specific
content and contours of Minnesota state law, the Eighth Circuit Court of Appeals
concluded that because “the plain text of Minnesota law treats prospective electors
as candidates,” it too would treat presidential elector nominees as candidates.
Carson, 78 F.3d at 1057. This Court, however, is as unconvinced about the
majority’s holding in Carson as the dissent:
I am not convinced the Electors have Article III standing
to assert claims under the Electors Clause. Although
28

1149 Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3323 Filed 12/07/20 Page 29 of 36

Minnesota law at times refers to them as “candidates,”
see, e.g., Minn. Stat. § 204B.03 (2020), the Electors are
not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office
of elector depends entirely on the outcome of the state
popular vote for president. Id. § 208.04 subdiv. 1 (“[A]
vote cast for the party candidates for president and vice
president shall be deemed a vote for that party’s
electors.”). They are not presented to and chosen by the
voting public for their office, but instead automatically
assume that office based on the public’s selection of
entirely different individuals.
78 F.3d at 1063 (Kelly, J., dissenting).8
Plaintiffs contend that the Michigan Election Code and relevant Minnesota
law are similar. (See ECF No. 49 at Pg ID 3076-78.) Even if the Court were to

In addition, at least one Circuit Court, the Third Circuit Court of Appeals, has
distinguished Carson’s holding, noting:

8

Our conclusion departs from the recent decision of an
Eighth Circuit panel which, over a dissent, concluded
that candidates for the position of presidential elector had
standing under Bond to challenge a Minnesota state-court
consent decree that effectively extended the receipt
deadline for mailed ballots. . . . The Carson court appears
to have cited language from Bond without considering
the context—specifically, the Tenth Amendment and the
reserved police powers—in which the U.S. Supreme
Court employed that language. There is no precedent for
expanding Bond beyond this context, and the Carson
court cited none.
Bognet, 2020 WL 6686120, at *8 n.6.
29

1150 Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3324 Filed 12/07/20 Page 30 of 36

agree, it finds that Plaintiffs lack standing to sue under the Elections and Electors
Clauses.
F.

The Merits of the Request for Injunctive Relief
1.

Likelihood of Success on the Merits

The Court may deny Plaintiffs’ motion for injunctive relief for the reasons
discussed above. Nevertheless, the Court will proceed to analyze the merits of
their claims.
a.

Violation of the Elections & Electors Clauses

Plaintiffs allege that Defendants violated the Elections Clause and Electors
Clause by deviating from the requirements of the Michigan Election Code. (See,
e.g., ECF No. 6 at Pg ID 884-85, ¶¶ 36-40, 177-81, 937-38.) Even assuming
Defendants did not follow the Michigan Election Code, Plaintiffs do not explain
how or why such violations of state election procedures automatically amount to
violations of the clauses. In other words, it appears that Plaintiffs’ claims are in
fact state law claims disguised as federal claims.
A review of Supreme Court cases interpreting these clauses supports this
conclusion. In Cook v. Gralike, the Supreme Court struck down a Missouri law
that required election officials to print warnings on the ballot next to the name of
any congressional candidate who refused to support term limits after concluding
that such a statute constituted a “‘regulation’ of congressional elections,” as used in
30

1151 Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3325 Filed 12/07/20 Page 31 of 36

the Elections Clause. 531 U.S. 510, 525-26 (2001) (quoting U.S. Const. art. I, § 4,
cl. 1). In Arizona State Legislature v. Arizona Independent Redistricting
Commission, the Supreme Court upheld an Arizona law that transferred
redistricting power from the state legislature to an independent commission after
concluding that “the Legislature,” as used in the Elections Clause, includes any
official body with authority to make laws for the state. 576 U.S. 787, 824 (2015).
In each of these cases, federal courts measured enacted state election laws against
the federal mandates established in the clauses—they did not measure violations of
enacted state elections law against those federal mandates.
By asking the Court to find that they have made out claims under the clauses
due to alleged violations of the Michigan Election Code, Plaintiffs ask the Court to
find that any alleged deviation from state election law amounts to a modification of
state election law and opens the door to federal review. Plaintiffs cite to no case—
and this Court found none—supporting such an expansive approach.
b.

Violation of the Equal Protection Clause

Most election laws will “impose some burden upon individual voters.”
Burdick v. Takushi, 504 U.S. 428, 433 (1992). But “[o]ur Constitution leaves no
room for classification of people in a way that unnecessarily abridges this right [to
vote].” Reynolds v. Sims, 377 U.S. 533, 559 (1964) (quoting Wesberry v. Sanders,
376 U.S. 1, 17-18 (1964)). Voting rights can be impermissibly burdened “by a
31

1152 Case 2:20-cv-01771-PP Filed 12/07/20 Page 32 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3326 Filed 12/07/20 Page 32 of 36

debasement or dilution of the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.” Id. (quoting Reynolds, 377
U.S. at 555).
Plaintiffs attempt to establish an Equal Protection claim based on the theory
that Defendants engaged in “several schemes” to, among other things, “destroy,”
“discard,” and “switch” votes for President Trump, thereby “devalu[ing]
Republican votes” and “diluting” the influence of their individual votes. (ECF No.
49 at Pg ID 3079.)
But, to be perfectly clear, Plaintiffs’ equal protection claim is not supported
by any allegation that Defendants’ alleged schemes caused votes for President
Trump to be changed to votes for Vice President Biden. For example, the closest
Plaintiffs get to alleging that physical ballots were altered in such a way is the
following statement in an election challenger’s sworn affidavit: “I believe some of
these workers were changing votes that had been cast for Donald Trump and other
Republican candidates.”9 (ECF No. 6 at Pg ID 902 ¶ 91 (citing Aff. Articia
Plaintiffs allege in several portions of the Amended Complaint that election
officials improperly tallied, counted, or marked ballots. But some of these
allegations equivocate with words such as “believe” and “may” and none of these
allegations identify which presidential candidate the ballots were allegedly altered
to favor. (See, e.g., ECF No. 6 at Pg ID 902, ¶ 91 (citing Aff. Articia Bomer, ECF
No. 6-3 at Pg ID 1008-10 (“I believe some of these ballots may not have been
properly counted.” (emphasis added))); Pg ID 902-03, ¶ 92 (citing Tyson Aff. ¶ 17)
(“At least one challenger observed poll workers adding marks to a ballot where
there was no mark for any candidate.”).
32

9

1153 Case 2:20-cv-01771-PP Filed 12/07/20 Page 33 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3327 Filed 12/07/20 Page 33 of 36

Bomer, ECF No. 6-3 at Pg ID 1008-1010).) But of course, “[a] belief is not
evidence” and falls far short of what is required to obtain any relief, much less the
extraordinary relief Plaintiffs request. United States v. O’Connor, No. 96-2992,
1997 WL 413594, at *1 (7th Cir. 1997); see Brown v. City of Franklin, 430 F.
App’x 382, 387 (6th Cir. 2011) (“Brown just submits his belief that Fox’s
‘protection’ statement actually meant “protection from retaliation. . . . An
unsubstantiated belief is not evidence of pretext.”); Booker v. City of St. Louis, 309
F.3d 464, 467 (8th Cir. 2002) (“Booker’s “belief” that he was singled out for
testing is not evidence that he was.”).10 The closest Plaintiffs get to alleging that
election machines and software changed votes for President Trump to Vice
10

As stated by the Circuit Court for the District of Columbia Circuit:
The statement is that the complainant believes and
expects to prove some things. Now his belief and
expectation may be in good faith; but it has been
repeatedly held that suspicion is not proof; and it is
equally true that belief and expectation to prove cannot
be accepted as a substitute for fact. The complainant
carefully refrains from stating that he has any
information upon which to found his belief or to justify
his expectation; and evidently he has no such
information. But belief, without an allegation of fact
either upon personal knowledge or upon information
reasonably sufficient upon which to base the belief,
cannot justify the extraordinary remedy of injunction.

Magruder v. Schley, 18 App. D.C. 288, 292, 1901 WL 19131, at *2 (D.C. Cir.
1901).
33

1154 Case 2:20-cv-01771-PP Filed 12/07/20 Page 34 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3328 Filed 12/07/20 Page 34 of 36

President Biden in Wayne County is an amalgamation of theories, conjecture, and
speculation that such alterations were possible. (See e.g., ECF No. 6 at ¶¶ 7-11,
17, 125, 129, 138-43, 147-48, 155-58, 160-63, 167, 171.) And Plaintiffs do not at
all explain how the question of whether the treatment of election challengers
complied with state law bears on the validity of votes, or otherwise establishes an
equal protection claim.
With nothing but speculation and conjecture that votes for President Trump
were destroyed, discarded or switched to votes for Vice President Biden, Plaintiffs’
equal protection claim fails.11 See Wood, 2020 WL 7094866 (quoting Bognet,
2020 WL 6686120, at *12) (“‘[N]o single voter is specifically disadvantaged’ if a
vote is counted improperly, even if the error might have a ‘mathematical impact on
the final tally and thus on the proportional effect of every vote.’”).

“[T]he Voter Plaintiffs cannot analogize their Equal Protection claim to
gerrymandering cases in which votes were weighted differently. Instead, Plaintiffs
advance an Equal Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal treatment. And if
dilution of lawfully cast ballots by the ‘unlawful’ counting of invalidly cast ballots
were a true equal-protection problem, then it would transform every violation of
state election law (and, actually, every violation of every law) into a potential
federal equal-protection claim requiring scrutiny of the government’s ‘interest’ in
failing to do more to stop the illegal activity. That is not how the Equal Protection
Clause works.” Bognet, 2020 WL 6686120, at *11.
34
11

1155 Case 2:20-cv-01771-PP Filed 12/07/20 Page 35 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3329 Filed 12/07/20 Page 35 of 36

2.

Irreparable Harm & Harm to Others

Because “a finding that there is simply no likelihood of success on the merits
is usually fatal[,]” Gonzales v. Nat’l Bd. of Med. Examiners, 225 F.3d 620, 625
(6th Cir. 2000) (citing Mich. State AFL-CIO v. Miller, 103 F.3d 1240, 1249 (6th
Cir. 1997), the Court will not discuss the remaining preliminary injunction factors
extensively.
As discussed, Plaintiffs fail to show that a favorable decision from the Court
would redress their alleged injury. Moreover, granting Plaintiffs’ injunctive relief
would greatly harm the public interest. As Defendants aptly describe, Plaintiffs’
requested injunction would “upend the statutory process for election certification
and the selection of Presidential Electors. Moreover, it w[ould] disenfranchise
millions of Michigan voters in favor [of] the preferences of a handful of people
who [are] disappointed with the official results.” (ECF No. 31 at Pg ID 2227.)
In short, none of the remaining factors weigh in favor of granting Plaintiffs’
request for an injunction.
IV.

Conclusion
For these reasons, the Court finds that Plaintiffs are far from likely to

succeed in this matter. In fact, this lawsuit seems to be less about achieving the
relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic
35

1156 Case 2:20-cv-01771-PP Filed 12/07/20 Page 36 of 37 Document 55-5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3330 Filed 12/07/20 Page 36 of 36

process and their trust in our government. Plaintiffs ask this Court to ignore the
orderly statutory scheme established to challenge elections and to ignore the will of
millions of voters. This, the Court cannot, and will not, do.
The People have spoken.
The Court, therefore, DENIES Plaintiffs’ “Emergency Motion for
Declaratory, Emergency, and Permanent Injunctive Relief” (ECF No. 7.)
IT IS SO ORDERED.
s/ Linda V. Parker
LINDA V. PARKER
U.S. DISTRICT JUDGE
Dated: December 7, 2020

36

1157 Case 2:20-cv-01771-PP Filed 12/07/20 Page 37 of 37 Document 55-5

EXHIBIT 6

1158

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 9 Document 55-6

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

2011 WL 7630628
Only the Westlaw citation is currently available.
United States District Court,
W.D. Wisconsin.

Lorene ZILISCH, Plaintiff,
v.
R.J. REYNOLDS TOBACCO
COMPANY, Defendant.
No. 10–cv–474–bbc.
|
June 21, 2011.
Attorneys and Law Firms
Peter J. Fox, Fox & Fox, S.C., Monona, WI, for Plaintiff.
Jonathan Matthew Linas, Michael Jeffrey Gray, Jones Day,
Chicago, IL, for Defendant.

OPINION and ORDER
BARBARA B. CRABB, District Judge.
*1 In May 2008, plaintiff Lorene Zilisch was terminated
by her former employer, defendant R.J. Reynolds Tobacco
Company, after she signed a customer's name to a contract
in violation of company policy. In this civil action brought
under the Age Discrimination in Employment Act, 29 U.S.C.
§ 623, plaintiff contends that defendant fired her not because
she violated company policy, but because of her age. Now
before the court is defendant's motion for summary judgment
in which defendant argues that plaintiff cannot establish a
prima facie case that it discriminated against her on the basis
of her age. Dkt. # 14. Plaintiff opposes the motion and has
filed additional proposed findings of fact in conjunction with
her opposition brief.
As an initial matter, several of plaintiff's proposed findings
of fact rely on inadmissible evidence. Specifically, several
statements in the affidavit of Carlo Fasciani, dkt. # 22,
a former division manager for defendant, are inadmissible
because they are conclusory and not made on the basis
of Fasciani's personal knowledge. For example, plaintiff
proposes as fact that “[Defendant] has always followed [its]
progressive discipline practice .... “, citing the Fasciani's

1159

affidavit containing the same conclusory statement. Plt.'s
PFOF, dkt. # 18, ¶ 14 (citing dkt. # 22 at ¶ 30). Also, Fasciani
avers that defendant gave older employees “unreasonable
goals, unjustly penalized them and gave them unfair
performance reviews,” id. at ¶ 12, while younger employees
“were frequently promoted and allowed to perform poorly
with less accountability.” Id. at ¶ 14.
Fasciani worked in discrete divisions of the company and
his affidavit provides no factual basis upon which he can
make such sweeping conclusions about the disciplinary
practices “always” utilized by defendant or statements about
how employees were treated outside his own division, let
alone in the Minneapolis Region or the Green Bay Division
where plaintiff worked. In other words, Fasciani does not
show that he has personal knowledge of the matters in his
affidavit. Fed.R.Civ.P. 56(c)(4) (affidavits used in opposition
to motion for summary judgment “must be made on personal
knowledge, set out facts that would be admissible in evidence,
and show that the affiant or declarant is competent to testify
on the matters stated.”). Additionally, much of Fasciani's
testimony is vague and conclusory. Hall v. Bodine Electric
Co., 276 F.3d 345, 354 (7th Cir.2002) (“It is well-settled that
conclusory allegations and self-serving affidavits, without
support in the record, do not create a triable issue of fact.”);
Drake v. Minnesota Mining & Manufacturing Co., 134 F.3d
878, 887 (7th Cir.1998) (“Rule 56 demands something more
specific than the bald assertion of the general truth of
a particular matter[;] rather it requires affidavits that cite
specific concrete facts establishing the existence of the truth
of the matter asserted.”). Thus, I will not consider Fasciani's
affidavit it or the statements of fact that rely on averments
in the affidavit. Watson v. Lithonia Lighting, 304 F.3d 749,
752 (7th Cir.2002) (affidavits used to support or oppose
summary judgment must be made on personal knowledge);
see also Haka v. Lincoln County, 533 F.Supp.2d 895, 899
(W.D.Wis.2008) (disregarding proposed facts not properly
supported by admissible evidence).
*2 After reviewing the parties' arguments and proposed
facts, I conclude that defendant is entitled to summary
judgment in its favor because plaintiff cannot establish a
prima facie case of age discrimination. No reasonable jury
could conclude that plaintiff lost her job because of her
age; rather, the uncontradicted evidence shows that defendant
terminated plaintiff because she violated company policy.
From the parties' proposed findings of fact and the record, I
find the following facts to be material and undisputed.

Case
Filedto12/07/20
2 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

1

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

UNDISPUTED FACTS
A. Plaintiff's Employment with Defendant
Plaintiff Lorene Zilisch was born in December 1957.
She began her employment with defendant R.J. Reynolds
Tobacco Co. in 2004 at the age of 46, following a merger
between Brown & Williamson Tobacco Company, her
previous employer, and defendant. In late 2007, plaintiff
began working in the Green Bay Division as a Trade
Marketing Representative, reporting directly to Brent Trader,
the division manager, who reported to David Williams, the
director of regional sales for the Minneapolis region.
As a trade marketing representative for defendant, plaintiff's
duties included visiting stores to build customer relationships,
negotiating and implementing contracts with defendant's
customers, reviewing customer order books to insure that
customers ordered the correct products according to their
contracts and checking product distribution in customer
stores. Defendant uses several different forms of written
contracts that trade marking representatives can propose to
retail store customers. The terms of these contracts vary
in many respects and address issues such as pricing of
defendant's products at the store, customer rebates and
discounts, space and signage the retailer must make available
for display in the store and configuration of defendants'
products on merchandising displays.
When a trade marketing representative and a customer
agree upon the terms of a contract, the trade marketing
representative selects the appropriate contract from a list of
electronic contracts on the representative's laptop computer.
(Defendant does not use paper contracts with retailers.) The
trade marketing representative and the customer then sign
the contract using an electric pen on an electronic signature
pad that is attached to the representative's laptop through a
USB port. Defendant's “Contract Signatures” policy, which
is included in the Trade Marketing Employee Handbook,
provides:
It is important that all agreements/contracts between the
Company and its retail customers are properly executed. It
is your responsibility to ensure that an authorized person
signs the agreement/contract on behalf of the retailer.
Therefore, ask the person if he or she has the authority to
sign the Company agreement/contract. It is not acceptable

1160

for you to sign for the retailer under any circumstances.
Make sure all agreements/contracts are properly dated and
appropriately filed according to company guidelines.
*3 Signing for the retailer could lead to termination of
employment.
Dkt. # 19–3 at 15 (emphasis in original). The Trade Marketing
Employee Handbook is distributed to all trade marketing
representatives, including plaintiff. Plaintiff received the
handbook at the start of her employment with defendant and
signed an agreement stating that she had read and understood
the policies contained within it.
Division managers sometimes accompany trade marketing
representatives on visits to customers. On April 23, 2008,
division manager Trader accompanied plaintiff on her visits
to several customers. Plaintiff and Trader traveled together
in plaintiff's car to their first appointment at Ace Oil
Express, where they planned to meet with the owner of
Ace Oil Express, Mary Lis, for the purpose of negotiating
a contract between Ace Oil Express and defendant. During
their meeting, the parties agreed to specific contract terms
that would go into effect on June 2, 2008. Before the
meeting concluded, both plaintiff and Lis signed a contract.
However, plaintiff had presented the incorrect contract to Lis
by mistake. Both plaintiff and Lis signed it without realizing
that it did not reflect the terms upon which the parties had
agreed.
After leaving Ace Oil Express, plaintiff and Trader proceeded
to their next appointment at Stanley Travel Stop, where
plaintiff and the manager of Stanley Travel Stop agreed upon
the terms of a contract between defendant and the Travel
Stop. When plaintiff searched on her laptop for the correct
contract, she noticed that she and Mary Lis had signed the
wrong contract at their meeting earlier that day. After noticing
this error, plaintiff told Trader, “Hey, I made a mistake, I
had [Mary Lis] sign, you know, the wrong addendum [to
the contract].” Dep. of plaintiff, dkt. # 16–1, at 130, lns. 9–
22. Plaintiff opened up a new contract on her laptop that
she believed reflected the terms upon which she and Lis had
agreed at their meeting. (This contract did not actually contain
the correct terms that plaintiff and Lis had agreed upon.)
Using the electronic pen and signature pad attached to her
computer, plaintiff signed both her own and Lis's name on
the new contract. Trader, who was standing a few feet away
from plaintiff, saw her sign Lis's name on the signature pad.
(The parties dispute whether plaintiff called Lis and asked for
permission to sign the contract on her behalf. Plaintiff testified
during her deposition that she did not call Lis before signing

Case
Filedto12/07/20
3 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

2

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

Lis's name on the contract and Trader testified that he never
saw plaintiff call Lis. However, plaintiff states in her affidavit
that she talked to Lis at some point that day about signing her
name. Lis also testifies in her affidavit that she talked with
plaintiff on the phone and gave her permission to sign the
contract. Neither plaintiff nor Lis says when the phone call
took place.)
After finishing their business at Stanley Travel Stop, plaintiff
and Trader went to plaintiff's car. After entering the car,
plaintiff told Trader, “You didn't see me do that,” referring
to her act of signing Lis's name on the contract. Trader told
plaintiff it was inappropriate for her to sign a contract for a
retailer and that she should never do it again. He suggested
that they return to Ace Oil Express that day to have Lis
execute the correct contract on her own behalf. Plaintiff and
Trader then went to lunch at a nearby restaurant, where they
discussed again why plaintiff had signed Lis's name. Plaintiff
told Trader that her previous managers told her that it was
acceptable to sign for customers. Trader responded that he
was her manager now and that it was not acceptable. After
lunch, plaintiff and Trader drove back to Ace Oil Express,
but Lis's vehicle was not in the parking lot, so they left. At
the end of the day, Trader talked with plaintiff about her
performance that day and plaintiff told him that she would
never sign a retailer's name to a contract again. Trader told
plaintiff to obtain a signature from Lis on the correct contract.
He did not tell plaintiff to cancel the contract she had signed
on Lis's behalf and did not cancel it himself. (Plaintiff avers
that Trader gave her positive feedback about her performance
that day, but defendant denies this.)
*4 Immediately after he finished working with plaintiff
on April 23, 2008, Trader consulted with his human
resources liaison, Jennifer Sanders, to determine whether
a recommendation to terminate plaintiff would be fair and
within the parameters of company policies. He also consulted
with Sanders several times between that date and the date
of plaintiff's termination, discussing company termination
policies. Also, Trader consulted with his supervisor, David
Williams, either on April 23 or 24, regarding termination of
plaintiff.
Defendant has a corrective action policy stating that
progressive discipline, including a series of oral and written
warnings, is appropriate in some circumstances. Dkt. # 19–3
at 71–72. The policy states that
[I]t is not possible to specify the corrective action step
appropriate for each type of behavior. However, it is

1161

the responsibility of management in consultation with
Human Resources, to determine on a case-by-case basis
which of the following corrective action steps based
on the particular facts and circumstances involved....
Some improper behavior, for example, justifies immediate
discharge. The fact that a progressive corrective action
system is utilized by the Company neither requires the use
of prior corrective action before discharge nor alters the
fact that employment with the Company is “atwill” and can
be terminated at any time and for any reason by either the
Company or the employee.
Id. (emphasis in original).
Additionally, defendant's policy regarding “Reasons for
Immediate Termination” provides that “there may be
instances where [progressive action] steps may be omitted,
due to the nature or severity of the infraction.” Id. at 73.
That policy provides a non-inclusive “list of offenses that
will normally result in immediate termination for the first
offense,” including “gross representation of information as it
relates to business practices.” Id. at 73–74.
Trader decided not to utilize progressive discipline in
plaintiff's case because he believed she had engaged in a clear
violation of company policy that was a terminable offense.
In particular, he believed her actions fell into the category of
“gross representation of information as it relates to business
practices.”
On May 5, 2008, Trader told plaintiff that he needed to meet
with her the next day at a restaurant near her house. (Plaintiff
had spoken to Trader on several occasions between April 23,
2008 and May 5, but Trader had not mentioned her signing
the contract for Lis or any discipline or termination related to
it.) After Trader's call, plaintiff went to Ace Oil Express to
meet with Mary Lis. This was the first time since April 23,
2008 that plaintiff had attempted to meet with Lis. At their
meeting, plaintiff apologized to Lis for signing Lis's name on
the contract and Lis signed a contract that reflected the actual
terms upon which Lis and plaintiff agreed previously. Lis was
not upset that plaintiff had signed on her behalf and never
complained to defendant about plaintiff's signing the contract
for her.
*5 The following morning, May 6, 2008, plaintiff met with
Trader and May Carroll, another division manager in the
Minneapolis regions. Trader read from a document explaining
that plaintiff was being terminated from employment because
she had “forg[ed] the signature of May Li[s] ... in an attempt to

Case
Filedto12/07/20
4 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

3

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

fix [her] contract mistake” in violation of defendant's Contract
Signatures policy. Dkt. # 19–1. The letter stated that plaintiff's
action amounted to “[g]ross misrepresentation of information
as it relates to business practices .” Id.
Before May 6, 2008, plaintiff had never been disciplined for
any performance or behavior deficiencies and no customer
had complained about her to defendant. She felt comfortable
with Trader and had a good working relationship with him.
Trader had never made comments to plaintiff about her age
and plaintiff had never reported any concerns to defendant's
human resources department regarding Trader's treatment of
her. In addition, Trader had evaluated plaintiff's performance
as satisfactory in the past and had considered her a good
performer.
Between January 1, 2006 and September 30, 2010, defendant
terminated eight trade marketing representatives. Two of
them were more than 40 and six were under 40. Dkt. # 26–
6. Plaintiff was the oldest employee terminated during this
period. Defendant replaced plaintiff with an employee who is
under 30.

B. Other Employees of Defendant
While Megan Anderson was employed as a trade marketing
representative for defendant, she hit a deer with a company
car. Anderson had been talking on the company-issued
cellular phone while driving, in violation of defendant's cell
phone policy. She was approximately 23 years old at the
time of the accident. Brent Trader, Anderson's supervisor at
the time of the accident, instructed her to not talk on her
cell phone anymore while driving. He did not discipline her
otherwise.
While Molly Anderson was employed as a trade marketing
representative for defendant, she left coupons with one
of her customers. (It is not clear whether she left the
coupons intentionally or by mistake.) It is a violation of
defendant's policy and grounds for immediate termination
to leave coupons at a store with a customer. Anderson was
approximately 22 years old at the time and was not terminated
for violating defendant's policy. Anderson has never been
employed in the Green Bay Division and has never reported
to Brent Trader.
(The parties dispute whether Brian Hietpas misrepresented
the number of products available to a customer or ordered

1162

by him while Hietpas was employed as a trade marketing
representative for defendant and when he was about 30.
Plaintiff says that Hietpas falsified certain records in violation
of defendant's policy, and she contends that she reported his
behavior to Trader and David Williams but that they did
not discipline him. Defendant denies that Hietpas violated
company policy and says that even if he did, neither
Trader nor Williams was ever made aware of any alleged
misbehavior by Heitpas. It is undisputed that Trader was never
Hietpas's supervisor.)

OPINION
*6 Under the Age Discrimination in Employment Act
(ADEA), it is unlawful for an employer to “discharge any
individual or otherwise discriminate against any individual”
because of the individual's age. 29 U.S.C. § 623(a)
(1). Traditionally, courts in this circuit have explained
that a plaintiff asserting age discrimination may prove
discrimination under a “direct” or “indirect” method of proof.
Under the direct method proof, the plaintiff presents direct
evidence of discrimination, such as such as an outright
admission from the employer, or circumstantial evidence that
points directly to a discriminatory reason for an adverse
employment action. Ptasznik v. St. Joseph Hospital, 464 F.3d
691, 695 (7th Cir.2006). Under the indirect method, a plaintiff
may prove discrimination using the burden-shifting approach
in McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973);
Burks v. Wisconsin Department of Transportation, 464 F.3d
744, 750–51 (7th Cir.2006).
The Supreme Court stated recently that to prevail in an
action under the ADEA “[a] plaintiff must prove by a
preponderance of the evidence (which may be direct or
circumstantial), that [an unlawful motive] was the ‘but-for’
cause of the challenged employer decision.” Gross v. FBL
Financial Services, Inc., 557 U.S. 167, 129 S.Ct. 2343, 2351
(2009); see also Lindsey v. Walgreen Co., 615 F.3d 873, 876
(7th Cir.2010); Senske v. Sybase, Inc., 588 F.3d 501, 508–
09 (7th Cir.2009). Additionally, the Supreme Court noted
that it “has not definitively decided whether the evidentiary
framework of McDonnell Douglas [ ], utilized in Title VII
cases is appropriate in the ADEA context.” Gross, 129 S.Ct.
at 2349, n. 2. The Seventh Circuit has noted that “[w]hether
[the] burden shifting analysis survives the Supreme Court's
declaration in Gross in non-Title VII cases, remains to be
seen.” Kodish v. Oakbrook Terrace Fire Protection District,
604 F.3d 490, 501 (7th Cir.2010).

Case
Filedto12/07/20
5 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

4

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

Relying on Gross and Kodish, defendant contends that
plaintiff must prove her case through the direct method.
However, the Court of Appeals for the Seventh Circuit has
long applied the indirect method of proof to ADEA claims,
e.g., Faas v. Sears, Roebuck, & Co., 532 F.3d 633, 641–42
(7th Cir.2008), and continues to do so in the wake of Gross,
despite its comments in Kodish. E.g., Van Antwerp v. City of
Peoria, Illinois, 627 F.3d 295, 298 (7th Cir.2010) (stating that
plaintiff may prove ADEA claim through direct or indirect
method); Naik v. Boehringer Ingelheim Pharmaceuticals,
Inc., 627 F.3d 596, 599 (7th Cir.2010) (applying McDonnell
Douglas burden shifting approach to AEDA claim); Mach v.
Will County Sheriff, 580 F.3d 495, 498 n. 3 (7th Cir.2009);
Martino v. MCI Communications Services, Inc., 574 F.3d 447,
452 (7th Cir.2009). Thus, I conclude that plaintiff may still
attempt to prove her discrimination case using the indirect
method of proof set forth in McDonnell Douglas.

A. Direct Method of Proof
*7 To survive summary judgment under the direct method,
plaintiff must demonstrate “triable issues as to whether
discrimination motivated the adverse employment action.”
Kodish, 604 F.3d at 501 (quoting Darchak v. City of Chicago
Board of Education, 580 F.3d 622, 631 (7th Cir.2009)).
“Direct” proof of discrimination is not limited to nearadmissions by the employer that its decisions were based on
a proscribed criterion (e.g., “You're too old to work here.”),
but also includes circumstantial evidence which suggests
discrimination through a longer chain of inferences.” Id.
Circumstantial evidence can take many forms, including
“suspicious timing, ambiguous oral or written statements, [ ]
behavior toward or comments directed at other employees
in the protected group [and] evidence showing that similarly
situated employees outside the protected class received
systematically better treatment.” Van Antwerp, 627 F.3d at
298 (internal citations and quotations omitted). However,
all circumstantial evidence must “point directly to a
discriminatory reason for the employer's action.” Id.
Plaintiff presents no evidence suggesting that the timing of
her termination was “suspicious” or that the person who
made the decision to discharge her, her supervisor Brent
Trader, was biased against older workers. Plaintiff concedes
that she had a good working relationship with Trader and
that he never made comments about her age. She has
presented no evidence of improper behavior toward her

1163

or any other trade marketing representative who was over
40 and worked in the same division or region. She has
identified no improper comments made by Trader to her or
to other female employees. Nonetheless, plaintiff contends
that there is sufficient circumstantial evidence from which a
jury could infer intentional discrimination under the direct
method of proof. In particular, she contends that intentional
discrimination can be inferred from (1) statistical evidence
concerning defendant's hiring practices; and (2) evidence that
other employees were treated better than she was.
Plaintiff contends that statistical evidence regarding
defendant's hiring practices shows that defendant prefers
younger workers. Specifically, she contends that in the last
few years, nearly all of defendant's new trade marketing
representatives are under the age of 40. However, plaintiff
does not explain adequately why evidence concerning the
hiring of employees has much bearing on defendant's reason
for terminating her, particularly when the person who
terminated her, Trader, did not have the authority to hire trade
marketing representatives. Evidence concerning defendant's
termination practices is more relevant to the issues in this
case; such evidence shows that between January 1, 2006
and August 23, 2010, six out of eight trade marketing
representatives who were terminated were under the age of
40. More important, plaintiff provides no analysis or context
for the hiring statistics she provides. For example, plaintiff has
provided no evidence of the age or experience of the applicant
pool from which trade marketing representatives were hired
in the Minneapolis region. The mere citation of statistics does
not create a triable issue. Barracks v. Eli Lilly & Co., 481
F.3d 556, 559 (7th Cir.2007) (“We have frequently discussed
the dangers of relying on raw data without further analysis
or context in employment discrimination disputes.”); see also
Jarrells v. Select Publishing, Inc., 2003 WL 23221278, *5
(W.D.Wis. Feb. 19, 2003) (“Plaintiff has failed to present any
evidence tying the statistical disparity to the decision not to
hire her.”).
*8 Additionally, plaintiff has identified no similarly situated
trade marketing representative who was substantially younger
and treated more favorably than she was. Plaintiff identifies
three younger employees who she asserts committed policy
violations comparable to hers: (1) Brian Hietpas, who
allegedly falsified information; (2) Molly Anderson, who left
coupons with a customer; and (3) Megan Anderson, who
used her cell phone while driving. None of these employees,
however, is similarly situated to plaintiff.

Case
Filedto12/07/20
6 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

5

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

Similarly situated employees must be “directly comparable to
the plaintiff in all material respects, which includes showing
that the coworkers engaged in comparable rule or policy
violations.” Patterson v. Indiana Newspapers, Inc., 589 F.3d
357, 365–66 (7th Cir.2009) (internal quotations and citation
omitted). In the course of this inquiry, the court considers
all of the relevant factors, including “whether the employees
(i) held the same job description, (ii) were subject to the
same standards, (iii) were subordinate to the same supervisor,
and (iv) had comparable experience, education, and other
qualifications....” Brummett v. Sinclair Broadcast Group,
Inc., 414 F.3d 686, 692 (7th Cir.2005) (internal citation and
quotation omitted).
Brian Hietpas and Molly Anderson were not supervised by
plaintiff's supervisor, Brent Trader, the person who made the
decision to terminate plaintiff's employment. Radue, 219 F.3d
at 618 (noting importance of showing common supervisor
because different supervisors make employment decisions
in different ways). The only trade marketing representative
that plaintiff identified who reported to Trader was Megan
Anderson, who was reprimanded by Trader after she violated
defendant's policy prohibiting employees from talking on
their cell phones while driving. This policy violation is not
comparable to a violation of the Contract Signatures policy.
Naik, 627 F.3d at 600 (similarly situated employee must
have violated comparable policy to plaintiff). Not only is
it not the same violation, but according to the employee
handbook, violation of the cell phone policy is not grounds for
immediate termination, unlike the Contract Signatures policy
that plaintiff violated.
In sum, plaintiff has produced no evidence “point[ing]
directly to a discriminatory reason for [defendant's] actions,”
Rhodes v. Illinois Department of Transportation, 359 F.3d
498, 504 (7th Cir.2004), or that is “directly related to the
employment decision” at issue. Venturelli v. ARC Community
Services, Inc., 350 F.3d 592, 602 (7th Cir.2003). Thus,
plaintiff's claim fails under the direct method.

A. Indirect Method of Proof
Because plaintiff has failed to demonstrate any potential
claim of direct discrimination, she must attempt to prove
her case under the McDonnell Douglas burden-shifting
approach. Under this approach, plaintiff must demonstrate
that (1) she is a member of a protected class; (2) she was
performing her job to defendant's legitimate expectations;

1164

(3) in spite of her meeting those legitimate expectations,
she suffered an adverse employment action; and (4) she
was treated less favorably than similarly situated employees
who are substantially younger. Naik, 627 F.3d at 599–600;
Ransom v. CSC Consulting, Inc., 217 F.3d 467, 470 (7th
Cir.2000). “ ‘Substantially younger’ means at least a tenyear age difference.” Fisher v. Wayne Dalton Corp., 139
F.3d 1137, 1141 (7th Cir.1998) (quoting Kariotis v. Navistar
International Transportation Corp., 131 F.3d 672, 676 n. 1
(7th Cir.1997)).
*9 Summary judgment for defendant is appropriate if
plaintiff fails to establish any of the foregoing elements of
the prima facie case. Atanus v. Perry, 520 F.3d 662, 673
(7th Cir.2008). If plaintiff can make a prima facie case with
respect to all elements, the burden shifts to defendant to offer
a nondiscriminatory reason for its actions. Burks, 464 F.3d at
751. Once the defendant proffers such a reason, the burden
shifts back to plaintiff to show that the reason is pretextual. Id.
The second and fourth elements of McDonnell Douglas are
at issue here. With respect to the second element, defendant
contends that plaintiff has not shown that she met its
legitimate expectations because she violated company policy
by signing a customer's name on a contract. Defendant's
policy in this regard was clear, stating that “[s]igning for
the retailor could lead to termination of employment.” In
addition, her supervisor made it clear that plaintiff's actions
had been unacceptable. Plaintiff's response is that she was
meeting defendant's legitimate expectations because she had
performed well in the past, her supervisor was positive in his
assessment of her performance on the same day she signed a
customer's name to a contract and defendant did not “cancel”
the contract on which she signed a customer's signature.
That plaintiff performed well in the past is not dispositive.
Naik, 627 F.3d at 598 (plaintiff “must show that he was
meeting [his employer's] expectations at the time of his
termination, which includes evidence that he did not violate
[company] policies.”); Luckie v. Ameritech Corp., 389 F.3d
708, 715 (7th Cir.2004). Plaintiff must show that she
was meeting defendant's expectations at the time of her
termination, which includes evidence that she did not violate
defendant's policies. In addition, regardless whether Trader
gave plaintiff some positive feedback on the day she signed a
customer's name to a contract (a fact that defendant disputes),
it is undisputed that Trader told plaintiff repeatedly that her
actions were unacceptable and that he began the process of
terminating her employment.

Case
Filedto12/07/20
7 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

6

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

Finally, the fact that defendant failed to “cancel” the contract
does not imply defendant's approval of plaintiff's behavior,
particularly in light of her supervisor's reprimands. In sum,
because plaintiff admits that she violated defendant's policies,
she has failed to establish the second element of her prima
facie case.
Turning to the fourth element, defendant contends that
plaintiff cannot show that similarly situated employees not
in her protected class were treated more favorably. As
discussed above, plaintiff has presented no evidence that
any employee who violated defendant's Contract Signatures
policy remained on the job. Naik, 627 F.3d at 600 (plaintiff
cannot satisfy similarly-situated prong with “no evidence that
any employee who violated the [same policy as plaintiff]
remained on the job”); Everroad v. Scott Truck Systems,
Inc., 604 F.3d 471, 479–480 (7th Cir.2010) (no similarly
situated employees violated same “insubordination” standard
that plaintiff violated).
*10 Plaintiff argues that she satisfies the fourth element
of her prima facie case by showing that defendant hired a
substantially younger employee to replace her, citing Hoffman
v. Primedia Special Interest Publications, 217 F.3d 522, 524
(7th Cir.2000). In Hoffman, the Court of Appeals for the
Seventh Circuit held that the plaintiff had to show only that he
was replaced by someone substantially younger. Id. However,
the court of appeals explained in Naik that this more relaxed
standard for the fourth element applies only if the plaintiff
has proven the second element of the prima facie case. Naik,
627 F.3d at 600–01. Because plaintiff has not shown that
she was meeting defendant's legitimate expectations when
she was terminated, her claim falls outside the more relaxed
requirement mentioned in Hoffman. Id. Therefore, plaintiff
has failed to establish the fourth element of her prima facie
case.
Moreover, even if I assume that plaintiff established a prima
facie case of age discrimination, she could not prevail because
defendant came forth with a legitimate, nondiscriminatory
reason for her termination that she fails to rebut: her violation
of the Contract Signatures policy. Naik, 627 F.3d at 600–
01. It is irrelevant whether defendant made a smart business
decision or whether it treated plaintiff harshly. Ineichen v.
Ameritech, 410 F.3d 956, 961 (7th Cir.2005) (“[I]t is not
the court's concern that an employer may be wrong about
its employee's performance, or be too hard on its employee.
Rather, the only question is whether the employer's proffered

1165

reason was pretextual, meaning that it was a lie.”) (quotations
and citation omitted). “If it is the true ground and not a
pretext, the case is over.” Forrester v. Rauland–Borg Corp.,
453 F.3d 416, 417 (7th Cir.2006). Defendant offered affidavits
and deposition testimony as well as a copy of its Contract
Signatures policy to support its contention that it terminated
plaintiff on the basis of her violation. Because defendant
articulated a credible reason, plaintiff must demonstrate that
it was a pretext or lie.
Plaintiff makes two arguments in support of her position that
defendant's justification for termination was pretextual. First,
she contends that signing a customer's name on a contract was
an “accepted practice” for trade marketing representatives.
However, the evidence does not support a conclusion that this
was an accepted practice. Although plaintiff says that one of
her former supervisors (not Trader) told her it was acceptable
to initiate a customer contract by signing for the customer,
this practice is forbidden specifically by defendant's Contract
Signatures policy. In addition, plaintiff testified that she had
never signed a customer's name on a contract before April 23,
2008.
Plaintiff's second argument is that defendant did not comply
with its own corrective action policy before terminating
plaintiff because it did not apply its progressive discipline
provisions. However, defendant's corrective action policy
does not require that progressive discipline be applied
in every situation; rather it states that some offenses
merit immediate termination. Plaintiff's belief that her
violation warranted progressive discipline is not evidence that
defendant's justification for terminating her was pretextual.
Atanus, 520 F.3d at 674 (plaintiff's “belief that her conduct ...
did not warrant a ten-day suspension [is insufficient] to show
that the [employer] did not act honestly and in good faith”).
*11 Again, plaintiff has not directed the court to any
evidence, direct or circumstantial, from which a jury could
conclude that the but for cause of her termination was age and
not her violation of company policy. Accordingly, defendant
is entitled to summary judgment in its favor.
IT IS ORDERED that defendant R.J. Reynolds Tobacco
Company's motion for summary judgment, dkt. # 14, is
GRANTED. The clerk of court is directed to enter judgment
for defendant and close this case.

Case
Filedto12/07/20
8 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

7

Zilisch v. R.J. Reynolds Tobacco Co., Not Reported in F.Supp.2d (2011)
2011 WL 7630628

All Citations
Not Reported in F.Supp.2d, 2011 WL 7630628
End of Document

1166

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
9 of 9 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-6

8

EXHIBIT 7

1167

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 55-7

Consolidated Water Power Co. v. 0.40 Acres of Land, Not Reported in F.Supp.2d (2011)
2011 WL 1831608

2011 WL 1831608
Only the Westlaw citation is currently available.
United States District Court,
W.D. Wisconsin.

CONSOLIDATED WATER
POWER COMPANY, Plaintiff,
v.
0.40 ACRES OF LAND, More or
Less, in Portage County, Wisconsin
and Robert D. Moodie, Defendants.
No. 10–CV–397–bbc.
|
May 12, 2011.
Attorneys and Law Firms
Allen Arntsen, Foley & Lardner LLP, Madison, WI, for
Plaintiff.
Robert D. Moodie, Plover, WI, pro se.

ORDER
BARBARA B. CRABB, District Judge.
*1 The parties have filed supplemental materials in response
to this court's April 28, 2011 order. Because the parties' filings
raise new issues of fact and law that cannot be resolved
without further development, I am striking the trial date and
directing the parties to start over.
This case started out as a claim brought by plaintiff
Consolidated Water Power Company under the Federal Power
Act, 16 U.S .C. § 814, to condemn a piece of land in Stevens
Point, Wisconsin that defendant Robert D. Moodie claimed
he purchased in 1998. (Plaintiff asked for condemnation of a
second parcel as well, but I dismissed the complaint as to that
parcel in the April 28 order.) Plaintiff's contention was that
the Act authorizes condemnation of the land because plaintiff
is a licensee under the Act, the land is a necessary part of the
project and it has been unable to obtain the property through
contract.

1168

The case got off track because plaintiff raised two
incompatible arguments in its motion for summary judgment.
Although it continued to assert its claim for condemnation, it
argued that it did not need to compensate defendant because it
already owned the parcel at issue through adverse possession.
Because one cannot condemn what one already owns, I gave
plaintiff a choice: (1) seek leave to amend the complaint
to include a claim for declaratory relief under state law
regarding the ownership of the land and ask for condemnation
in the alternative; or (2) concede for the purpose of this
case that defendant owns the land and abandon its argument
that defendant is entitled to no compensation because he
does not own the land. Dkt. # 28. Plaintiff chose the first
option. Defendant's only objection was that a state law claim
should be decided by a state court, but I concluded that it
was appropriate to exercise supplemental jurisdiction over the
state law claim under 28 U.S.C. § 1367 because it arose out
of the same facts as plaintiff's federal claim.
Because the parties already had submitted evidence and
argument on the adverse possession claim, I conducted a
preliminary review of the merits of that claim in the April
28 order. The evidence in the record supported a conclusion
that plaintiff had obtained the parcel at issue through adverse
possession no later than 1971, but I noted that neither
side had discussed Wis. Stat. § 706.09, which, in some
circumstances, gives bona fide purchasers of land rights that
take priority over others with adverse claims. I gave both sides
an opportunity to address the statute.
The parties' responses show that it would be premature to
decide plaintiff's adverse possession claim now. Plaintiff
submits new evidence to support its view that defendant had
notice of plaintiff's adverse claim when he purchased the
property in the 1998 and that plaintiff meets the statutory
definition of “public service corporation,” two questions that
are important to the application of § 706.09. However, it
would be unfair to consider this new evidence without giving
defendant an opportunity to respond.
*2 For his part, defendant in his response seems to be
raising two new affirmative defenses to plaintiff's claim
for adverse possession: estoppel and laches. This brings up
an issue I overlooked in the April 28 order, which is that
defendant has not yet had an opportunity to file an answer
to plaintiff's amended complaint. Although I do not know
whether defendant can prevail on these defenses, it seems
that both can apply in the context of a property dispute,
e.g., Buza v. Wojtalewicz, 48 Wis.2d 557, 180 N.W.2d 556

Case
Filedto12/07/20
2 of 7 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-7

1

Consolidated Water Power Co. v. 0.40 Acres of Land, Not Reported in F.Supp.2d (2011)
2011 WL 1831608

(1970)(estoppel); Lemieux v. Agate Land Co., 193 Wis. 462,
214 N.W. 454, 458 (1927) (laches), so he should be allowed
to develop them.
Because of the new issues raised in the parties' filings, I
conclude that it is time to hit the reset button on this case.
First, I will give defendant an opportunity to file an answer
to plaintiff's amended complaint. An answer is simply a
document that responds to each of the allegations in the
complaint, agreeing or disagreeing with each allegation, as
appropriate. In addition, the answer is the document in
which the defendant identifies any affirmative defenses or
counterclaims he wishes to assert. The top of the answer
should be a caption similar to the amended complaint that
includes the name of the court, the parties and the case
number. Below that, defendant should include numbered
paragraphs that correspond to each of the paragraphs in
the amended complaint. Next to each paragraph number,
he should say whether he admits each allegation in the
complaint, denies it or does not have enough information to
know whether the allegation is true or false. If he wishes to
raise any affirmative defenses or counterclaims, he should
include those in his answer as well. The requirements for
preparing an answer are described further in Federal Rules of
Civil Procedure 8(b) and 10.
Second, I will give the parties a new deadline for filing
dispositive motions. Although both sides have had multiple
opportunities to present their side of the story, I believe a do
over is necessary in light of the new issues both sides have
raised.
In anticipation of the new motions for summary judgment,
I will give defendant a few words of advice in preparing
his summary judgment submissions. First, as I explained
to defendant in the April 28 order, his own statements and
those of his witnesses are not admissible unless they are
sworn. Collins v. Seeman, 462 F.3d 757, 760 n. 1 (7th
Cir.2006). Defendant says that he “was under the impression
that anything stated to the court with my signature attached
was already sworn to be the truth.” Dft.'s Br., dkt. # 54,
at 1. This is wrong. In federal court, a statement may be
sworn in one of two ways: (1) with the signature and seal
of a notary public that is provided upon the signing of the
document; or (2) with a declaration at the completion of his
affidavit that includes the following statement followed by a
signature: “I declare under penalty of perjury under the laws
of the United States of America that the foregoing is true
and correct. Executed on (date).” 28 U.S.C. § 1746. A court

1169

cannot consider as evidence statements that are made in a
brief. Further, defendant cannot correct the problem simply
by asking the court to “consider all statements to be the truth
in all deliberations.” Dft.'s Br., dkt. # 54, at 1. If defendant
relies on a document that does not comply with the procedure
identified above, the court will not consider it.
*3 Second, if defendant wants the court to use documents as
evidence, they must be authenticated as Fed.R.Evid. 901(a)
requires. To authenticate a document, a party must submit
“evidence sufficient to support a finding that the matter in
question is what its proponent claims.” Ordinarily, documents
are authenticated by attaching them to an affidavit of an
individual who swears that the documents are true and
correct copies of the originals. However, the individual who
authenticates the documents must have personal knowledge
of their authenticity. Fed.R.Evid. 901(b)(1).
More generally, defendant should study carefully the
summary judgment procedures he received from the court
after the preliminary pretrial conference in the case. In
particular, defendant should read the Memorandum to
Pro Se Litigants Regarding Summary Judgment Motions.
This memorandum is designed to help pro se parties
avoid common mistakes, such as those defendant made in
responding to plaintiff's first summary judgment motion. (I
am attaching the memorandum and the procedures to this
opinion in the event thatdefendant no longer has them.)
If defendant does not believe he can comply with the
procedures, he should seek assistance from a lawyer.

ORDER
IT IS ORDERED that
1. The trial date in this case is STRICKEN.
2. Defendant Robert Moodie may have until May 27, 2011,
to file an answer to plaintiff Consolidated Water Power
Company's amended complaint.
3. The parties may have until June 17, 2011, to file renewed
dispositive motions, such as a motion to dismiss or a motion
for summary judgment.
4. If the case is not resolved on dispositive motions, I will set
a new trial date at that time.

Case
Filedto12/07/20
3 of 7 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-7

2

Consolidated Water Power Co. v. 0.40 Acres of Land, Not Reported in F.Supp.2d (2011)
2011 WL 1831608

MEMORANDUM TO PRO SE LITIGANTS REGARDING
SUMMARY JUDGMENT MOTIONS
This court expects all litigants, including persons representing
themselves, to follow this court's Procedures to be Followed
on Motions for Summary Judgment. If a party does not
follow the procedures, there will be no second chance to
do so. Therefore, PAY ATTENTION to the following list of
mistakes pro se plaintiffs tend to make when they oppose a
defendant's motion for summary judgment:
• Problem: The plaintiff does not answer the defendant's
proposed facts correctly.
Solution: To answer correctly, a plaintiff must file a
document titled “Response to Defendant's Proposed
Findings of Fact.” In this document, the plaintiff must
answer each numbered fact that the defendant proposes,
using separate paragraphs that have the same numbers as
defendant's paragraphs. See Procedure II.D. If plaintiff
does not object to a fact that the defendant proposes, he
should answer, “No dispute.”

perjury in a separate affidavit that the document is a true
and correct copy of what it appears to be. For example, if
plaintiff wants to support a proposed fact with evidence
that he received a conduct report, he must submit a copy
of the conduct report, together with an affidavit in which
he declares under penalty of perjury that the copy is a
true and unaltered copy of the conduct report he received
on such and such a date.
NOTE WELL: If a party fails to respond to a fact proposed
by the opposing party, the court will accept the opposing
party's proposed fact as undisputed. If a party's response to
any proposed fact does not comply with the court's procedures
or cites evidence that is not admissible, the court will take
the opposing party's factual statement as true and undisputed.
Additional tips for making sure that your submissions comply
with the court's procedures are attached to the front of the
Procedures.

HELPFUL TIPS FOR FILING A SUMMARY JUDGMENT
MOTION

• Problem: The plaintiff submits his own set of proposed
facts without answering the defendant's facts.

Please read the attached directions carefully—doing so will
save your time and the court's.

• Solution: Procedure II.B. allows a plaintiff to file his own
set of proposed facts in response to a defendant's motion
ONLY if he thinks he needs additional facts to prove his
claim.

REMEMBER:

*4 • Problem: The plaintiff does not tell the court and
the defendant where there is evidence in the record to
support his version of a fact.

1. All facts necessary to sustain a party's position on a
motion for summary judgment must be explicitly proposed as
findings of fact. This includes facts establishing jurisdiction.
(Think of your proposed findings of fact as telling a story to
someone who knows nothing of the controversy.)

• Solution: Plaintiff must pay attention to Procedure
II.D .2., which tells him how to dispute a fact proposed
by the defendant. Also, he should pay attention to
Procedure I.B.2., which explains how a new proposed
fact should be written.

2. The court will not search the record for factual evidence.
Even if there is evidence in the record to support your position
on summary judgment, if you do not propose a finding of
fact with the proper citation, the court will not consider that
evidence when deciding the motion.

• Problem: The plaintiff supports a fact with an exhibit
that the court cannot accept as evidence because it is not
authenticated.

3. A fact properly proposed by one side will be accepted by the
court as undisputed unless the other side properly responds to
the proposed fact and establishes that it is in dispute.

Solution: Procedure I.C. explains what may be submitted
as evidence. A copy of a document will not be accepted
as evidence unless it is authenticated. That means that the
plaintiff or someone else who has personal knowledge
what the document is must declare under penalty of

4. Your brief is the place to make your legal argument, not to
restate the facts. When you finish it, check it over with a fine
tooth comb to be sure you haven't relied upon or assumed any
facts in making your legal argument that you failed to include

1170

Case
Filedto12/07/20
4 of 7 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-7

3

Consolidated Water Power Co. v. 0.40 Acres of Land, Not Reported in F.Supp.2d (2011)
2011 WL 1831608

in the separate document setting out your proposed findings
of fact.
*5 5. A chart listing the documents to be filed by the
deadlines set by the court for briefing motions for summary
judgment or cross-motions for summary judgment is printed
on the last page of the procedures.

PROCEDURE TO BE FOLLOWED ON MOTIONS FOR
SUMMARY JUDGMENT
I. MOTION FOR SUMMARY JUDGMENT
A. Contents:
1. A motion, together with such materials permitted by
Rule 56(e) as the moving party may wish to serve and
file; and
2. In a separate document, a statement of proposed
findings of fact or a stipulation of fact between or
among the parties to the action, or both; and
3. Evidentiary materials (see I.C.); and
4. A supporting brief.
B. Rules Regarding Proposed Findings of Fact:
1. Each fact must be proposed in a separate, numbered
paragraph, limited as nearly as possible to a single
factual proposition.
2. Each factual proposition must be followed by a
reference to evidence supporting the proposed fact.
For example,
“1. Plaintiff Smith bought six Holstein calves on July
11, 2006. Harold Smith Affidavit, Jan. 6, 2007, p.
1, ¶ 3.”
3. The statement of proposed findings of fact shall
include ALL factual propositions the moving party
considers necessary for judgment in the party's
favor. For example, the proposed findings shall
include factual statements relating to jurisdiction,
the identity of the parties, the dispute, and the
context of the dispute.

1171

4. The court will not consider facts contained only in
a brief.
C. Evidence
1. As noted in I.B. above, each proposed finding must be
supported by admissible evidence. The court will not
search the record for evidence. To support a proposed
fact, you may use:
a. Depositions. Give the name of the witness, the date
of the deposition, and page of the transcript of cited
deposition testimony;
b. Answers to Interrogatories. State the number of the
interrogatory and the party answering it;
c. Admissions made pursuant to Fed.R.Civ.P. 36.
(state the number of the requested admission and
the identity of the parties to whom it was directed);
or
d. Other Admissions. The identity of the document,
the number of the page, and paragraph of the
document in which that admission is made.
e. Affidavits. The page and paragraph number, the
name of the affiant, and the date of the affidavit.
(Affidavits must be made by persons who have first
hand knowledge and must show that the person
making the affidavit is in a position to testify about
those facts.)
f. Documentary evidence that is shown to be true and
correct, either by an affidavit or by stipulation of the
parties. (State exhibit number, page and paragraph.)
II. RESPONSE TO MOTION FOR SUMMARY JUDGMENT
A. Contents:
1. A response to the moving party's proposed finding of
fact; and
2. A brief in opposition to the motion for summary
judgment; and
3. Evidentiary materials (See I.C.)
B. In addition to responding to the moving party's proposed
facts, a responding party may propose its own findings of fact
following the procedure in section I.B. and C. above.

Case
Filedto12/07/20
5 of 7 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-7

4

Consolidated Water Power Co. v. 0.40 Acres of Land, Not Reported in F.Supp.2d (2011)
2011 WL 1831608

*6 1. A responding party should file additional proposed
findings of fact if it needs them to defeat the motion for
summary judgment.
2. The purpose of additional proposed findings of fact
is to SUPPLEMENT the moving party's proposed
findings of fact, not to dispute any facts proposed
by the moving party. They do not take the place
of responses. Even if the responding party files
additional proposed findings of fact, it MUST file
a separate response to the moving party's proposed
findings of fact.
C. Unless the responding party puts into dispute a fact
proposed by the moving party, the court will conclude that the
fact is undisputed.
D. Rules Regarding Responses to the Moving Party's
Proposed Factual Statements:
1. Answer each numbered fact proposed by the moving
party in separate paragraphs, using the same number.
2. If you dispute a proposed fact, state your version
of the fact and refer to evidence that supports that
version. For example,
Moving party proposes as a fact:
“1. Plaintiff Smith purchased six Holstein calves from
Dell's Dairy Farm on July 11, 2006. Harold Smith
Affidavit, Jan. 6, 2007, p. 1, ¶ 3.”
Responding party responds:
“1. Dispute. The purchase Smith made from Dell's Dairy
Farm on July 11, 2006 was for one Black Angus bull John
Dell Affidavit, Feb. 1, 2007, Exh. A.”
3. The court prefers but does not require that the responding
party repeat verbatim the moving party's proposed fact
and then respond to it. Using this format for the example
above would lead to this response by the responding
party:
“1. Plaintiff Smith purchased six Holstein calves from
Dell's Dairy Farm on July 11, 2006. Harold Smith Affidavit,
Jan. 6, 2007, p. 1, ¶ 3.
“Dispute. The purchase Smith made from Dell's Dairy
Farm on July 11, 2006 was for one Black Angus bull.” John
Dell Affidavit, Feb. 1, 2007, Exh. A.”

1172

4. When a responding party disputes a proposed finding
of fact, the response must be limited to those facts
necessary to raise a dispute. The court will disregard any
new facts that are not directly responsive to the proposed
fact. If a responding party believes that more facts are
necessary to tell its story, it should include them in its
own proposed facts, as discussed in II.B.
E. Evidence
1. Each fact proposed in disputing a moving party's
proposed factual statement and all additional facts
proposed by the responding party must be supported by
admissible evidence. The court will not search the record
for evidence. To support a proposed fact, you may use
evidence as described in Procedure I.C.1. a. through f.
2. The court will not consider any factual
propositions made in response to the moving party's
proposed facts that are not supported properly and
sufficiently by admissible evidence.
III. REPLY BY MOVING PARTY
A. Contents:
1. An answer to each numbered factual statement made by
the responding party in response to the moving party's
proposed findings of fact, together with references to
evidentiary materials; and
*7 2. An answer to each additional numbered factual
statement proposed by the responding party under
Procedure II.B., if any, together with references to
evidentiary materials; and
3. A reply brief; and
4. Evidentiary materials (see I.C.)
B. If the responding party has filed additional
proposed findings of fact, the moving party should
file its response to those proposed facts at the same
time as its reply, following the procedure in section
II.
C. When the moving party answers the responding
party's responses to the moving party's original
proposed findings of fact, and answers the
responding party's additional proposed findings of

Case
Filedto12/07/20
6 of 7 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-7

5

Consolidated Water Power Co. v. 0.40 Acres of Land, Not Reported in F.Supp.2d (2011)
2011 WL 1831608

fact, the court prefers but does not require that the
moving party repeat verbatim the entire sequence
associated with each proposed finding of fact so
that reply is a self-contained history of all proposed
facts, responses and replies by all parties.
IV. SUR–REPLY BY RESPONDING PARTY

End of Document

1173

A responding party shall not file a sur-reply without first
obtaining permission from the court. The court only permits
sur-replies in rare, unusual situations.
All Citations
Not Reported in F.Supp.2d, 2011 WL 1831608

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
7 of 7 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

55-7

6

EXHIBIT 8

1174

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 4 Document 55-8

OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

March 31, 2020

To:
David R. Gault
Marcia A. MacKenzie
Dane County Corporation Counsel
Room 419
210 Martin Luther King Jr. Blvd.
Madison, WI 53703-3345
Lisa M. Lawless
Husch Blackwell, LLP
555 E. Wells St., Ste. 1900
Milwaukee, WI 53202-3819

Eric M. McLeod
Lane E. B. Ruhland
Husch Blackwell LLP
P.O. Box 1379
Madison, WI 53701-1379
Misha Tseytlin
Kevin M. LeRoy
Troutman Sanders LLP
1 N. Wacker Dr., Ste. 2905
Chicago, IL 60606

You are hereby notified that the Court has entered the following order:
2020AP557-OA

Jefferson v. Dane County

On March 27, 2020, petitioners, Mark Jefferson and the Republican Party of Wisconsin,
filed a petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70, a
supporting legal memorandum, and a motion for temporary injunctive relief. On that same date,
the court ordered the named respondents, Dane County and Scott McDonell, in his official capacity
as Dane County Clerk, to file a response to the original action petition and the motion for temporary
injunctive relief by 1:00 on March 30, 2020. The court has reviewed the filings of the parties and
now addresses the motion for temporary injunctive relief.
When we have considered whether to grant temporary injunctive relief, we have required
a movant to show (1) a reasonable probability of success on the merits; (2) a lack of an adequate
remedy at law; (3) that the movant will suffer irreparable harm in the absence of an injunction; and
(4) that a balancing of the equities favors issuing the injunction. See, e.g., Pure Milk Products
Coop. v. National Farmers Org., 90 Wis. 2d 781, 800, 280 N.W.2d 691 (1979); Werner v. A.L.
Grootemaat & Sons, Inc., 80 Wis. 2d 513, 520, 259 N.W.2d 310 (1977). The decision whether to
grant an injunction is a discretionary one, although injunctions are not to be issued lightly. Werner,
80 Wis. 2d at 520.

1175

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 4 Document 55-8

Page 2
March 31, 2020
2020AP557-OA

Jefferson v. Dane County

The temporary injunction the petitioners seek would order respondent, Scott McDonell, the
Dane County Clerk, to remove a March 25, 2020 Facebook post in which he indicated, inter alia,
that all Dane County voters could declare themselves to be "indefinitely confined" under Wis. Stat.
§ 6.86(2) due to illness solely because of the Wisconsin Department of Health Services Emergency
Order #12 (the Safer at Home Order) and difficulties in presenting or uploading a valid proof of
identification, thereby avoiding the legal requirement to present or upload a copy of the voter's
proof of identification when requesting an absentee ballot.1 The petitioners further ask this court
to order respondent McDonell and respondent Dane County to issue new statements setting forth
the statutory interpretation proposed by the petitioners.
Although respondents do not represent that McDonell's original March 25, 2020 post has
been removed, they argue that McDonell's later posting renders the petitioners' motion moot
because McDonell has now posted the Wisconsin Elections Commission’s (WEC) guidance on his
Facebook page. They also argue that the petitioners' petition and motion for temporary relief
cannot go forward in this court because they have not exhausted their administrative remedies by
first filing a complaint with the WEC under Wis. Stat. § 5.06(1) and (2).
McDonell's March 25, 2020, advice was legally incorrect. In addition, McDonell's
subsequent Facebook posting does not preclude McDonell's future posting of the same erroneous
advice. Furthermore, his erroneous March 25, 2020 Facebook posting continues distribution on
the internet.
Accordingly, we conclude that clarification of the purpose and proper use of the
indefinitely confined status pursuant to Wis. Stat. § 6.86(2) as well as a temporary injunction are
warranted.
In regard to clarification, the WEC has met and has issued guidance on the proper use of
indefinitely confined status under Wis. Stat. § 6.86(2) in its March 29, 2020 publication, "Guidance
for Indefinitely Confined Electors COVID-19." The WEC guidance states as follows:
1. Designation of indefinitely confined status is for each individual voter to make
based upon their current circumstances. It does not require permanent or total
inability to travel outside of the residence. The designation is appropriate for
electors who are indefinitely confined because of age, physical illness or
infirmity or are disabled for an indefinite period.
2. Indefinitely confined status shall not be used by electors simply as a means to
avoid the photo ID requirement without regard to whether they are indefinitely
confined because of age, physical illness or infirmity, or disability.
We conclude that the WEC's guidance quoted above provides the clarification on the purpose and
proper use of the indefinitely confined status that is required at this time.
We further determine that the petitioners have demonstrated a reasonable probability of
success on the merits, at least with respect to certain statements in McDonell's March 25th
1

Petitioners note that the Milwaukee County Clerk issued nearly identical advice.
1176 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 4 Document 55-8

Page 3
March 31, 2020
2020AP557-OA

Jefferson v. Dane County

Facebook post. Voters may be misled to exercise their right to vote in ways that are inconsistent
with Wis. Stat. § 6.86(2). Namely, McDonell appeared to assert that all voters are automatically,
indefinitely confined solely due to the emergency and the Safer at Home Order and that voters
could therefore declare themselves to be indefinitely confined when requesting an absentee ballot,
which would allow them to skip the step of presenting or uploading a valid proof of identification.
Indeed, we do not see how the respondents could prevail with an argument that such statements in
the March 25th post constitute an accurate statement of the relevant statutory provisions.
NOW THEREFORE, IT IS ORDERED that the petitioners' motion for temporary
injunctive relief is granted and we order McDonell to refrain from posting advice as the County
Clerk for Dane County inconsistent with the above quote from the WEC guidance.
DANIEL KELLY, J., did not participate.
Sheila T. Reiff
Clerk of Supreme Court

1177

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 4 Document 55-8

EXHIBIT 9

1178 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 20 Document 55-9

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

2020 WL 6686120
Only the Westlaw citation is currently available.
United States Court of Appeals, Third Circuit.

Jim BOGNET, Donald K. Miller,
Debra Miller, Alan Clark,
Jennifer Clark, Appellants
v.
SECRETARY COMMONWEALTH OF
PENNSYLVANIA; Adams County Board
of Elections; Allegheny County Board
of Elections; Armstrong County Board
of Elections; Beaver County Board
of Elections; Bedford County Board
of Elections; Berks County Board of
Elections; Blair County Board of Elections;
Bradford County Board of Elections;
Bucks County Board of Elections; Butler
County Board of Elections; Cambria
County Board of Elections; Cameron
County Board of Elections; Carbon County
Board of Elections; Centre County Board
of Elections; Chester County Board
of Elections; Clarion County Board of
Elections; Clearfield County Board of
Elections; Clinton County Board of
Elections; Columbia County Board of
Elections; Crawford County Board of
Elections; Cumberland County Board
of Elections; Dauphin County Board of
Elections; Delaware County Board of
Elections; Elk County Board of Elections;
Erie County Board of Elections; Fayette
County Board of Elections; Forest County
Board of Elections; Franklin County
Board of Elections; Fulton County Board
of Elections; Greene County Board of
Elections; Huntingdon County Board

of Elections; Indiana County Board
of Elections; Jefferson County Board
of Elections; Juniata County Board of
Elections; Lackawanna County Board
of Elections; Lancaster County Board
of Elections; Lawrence County Board
of Elections; Lebanon County Board
of Elections; Lehigh County Board of
Elections; Luzerne County Board of
Elections; Lycoming County Board
of Elections; Mckean County Board
of Elections; Mercer County Board
of Elections; Mifflin County Board of
Elections; Monroe County Board of
Elections; Montgomery County Board
of Elections; Montour County Board
of Elections; Northampton County
Board of Elections; Northumberland
County Board of Elections; Perry County
Board of Elections; Philadelphia County
Board of Elections; Pike County Board
of Elections; Potter County Board of
Elections; Schuylkill County Board
of Elections; Snyder County Board of
Elections; Somerset County Board of
Elections; Sullivan County Board of
Elections; Susquehanna County Board of
Elections; Tioga County Board of Elections;
Union County Board of Elections; Venango
County Board of Elections; Warren County
Board of Elections; Washington County
Board of Elections; Wayne County Board
of Elections; Westmoreland County Board
of Elections; Wyoming County Board of
Elections; York County Board of Elections
Democratic National
Committee, Intervenor

Filedto12/07/20
2 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1179 Case

1

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

No. 20-3214
|
Submitted Pursuant to Third Circuit
L.A.R. 34.1(a) November 9, 2020
|
(Filed: November 13, 2020)
Synopsis
Background: Voters and congressional candidate brought
action against Secretary of Commonwealth of Pennsylvania
and county boards of elections, seeking to enjoin the counting
of mail-in ballots received during the three-day extension
of the ballot-receipt deadline ordered by the Pennsylvania
Supreme Court, and seeking a declaration that the extension
period and presumption of timeliness was unconstitutional.
The United States District Court for the Western District
of Pennsylvania, Kim R. Gibson, Senior District Judge,
2020 WL 6323121, denied voters' and candidate's motion
for a temporary restraining order (TRO) and preliminary
injunction. Voters and candidate appealed.

Holdings: The Court of Appeals, Smith, Chief Judge, held
that:
the District Court's order was immediately appealable;
voters and candidate lacked standing to bring action alleging
violation of Constitution's Elections Clause and Electors
Clause;
voters lacked concrete injury for their alleged harm of vote
dilution, and thus voters did not have standing for such claim;
voters lacked particularized injury for their alleged harm of
vote dilution, and thus voters did not have standing for such
claim;
voters failed to allege legally cognizable “preferred class,” for
purposes of standing to claim equal protection violation;
alleged harm from presumption of timeliness was
hypothetical or conjectural, and thus voters did not have
standing to challenge presumption; and
voters and candidate were not entitled to receive injunction
so close to election.

Affirmed.
On Appeal from the United States District Court for the
Western District of Pennsylvania, District Court No. 3-20cv-00215, District Judge: Honorable Kim. R. Gibson
Attorneys and Law Firms
Brian W. Barnes, Peter A. Patterson, David H. Thompson,
Cooper & Kirk, 1523 New Hampshire Avenue, N.W.,
Washington, D.C. 20036, Counsel for Appellants
Mark A. Aronchick, Michele D. Hangley, Robert A. Wiygul,
Hangley Aronchick Segal Pudlin & Schiller, One Logan
Square, 18th & Cherry Streets, 27th Floor, Philadelphia, PA
19103, J. Bart DeLone, Sean A. Kirkpatrick, Keli M. Neary,
Office of Attorney General of Pennsylvania, Strawberry
Square, Harrisburg, PA 17120, Dimitrios Mavroudis, Jessica
Rickabaugh, Joe H. Tucker, Jr., Tucker Law Group, Ten Penn
Center, 1801 Market Street, Suite 2500, Philadelphia, PA
19103, Counsel Secretary Commonwealth of Pennsylvania
Elizabeth A. Dupuis, Molly E. Meachem, Babst Calland, 330
Innovation Boulevard, Suite 302, State College, PA 16803,
Counsel for Armstrong, Bedford, Blair, Centre Columbia,
Dauphin, Fayette, Huntingdon, Indiana, Lackawanna,
Lawrence, Northumberland, Venango, and York County
Boards of Elections
Christine D. Steere, Deasey Mahoney & Valentini, 103
Chesley Drive, Lafayette Building, Suite 101, Media, PA
19063, Counsel for Berks County Board of Elections
Edward D. Rogers, Elizabeth V. Wingfield, Ballard Spahr,
1735 Market Street, 51st Floor, Philadelphia, PA 19103,
Counsel for Delaware County Board of Elections
Stephen B. Edwards, Frank J. Lavery, Jr., Andrew W.
Norfleet, Lavery Law, 225 Market Street, Suite 304, P.O. Box
1245, Harrisburg, PA 17108, Counsel for Franklin and Perry
County Boards of Elections
Thomas R. Shaffer, Glassmire & Shaffer Law Offices, 5 East
Third Street, P.O. Box 509, Coudersport, PA 16915, Counsel
for Potter County Board of Elections
Marc E. Elias, Uzoma Nkwonta, Courtney A. Elgart,
Perkins Coie, 700 13th Street, N.W. Suite 800, Washington,
D.C. 20005, Counsel for Intervenor Democratic National
Committee

Filedto12/07/20
3 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1180 Case

2

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Before: SMITH, Chief Judge, SHWARTZ and SCIRICA,
Circuit Judges

OPINION OF THE COURT
SMITH, Chief Judge.
*1 A share in the sovereignty of the state, which is
exercised by the citizens at large, in voting at elections is
one of the most important rights of the subject, and in a
republic ought to stand foremost in the estimation of the
law.—Alexander Hamilton1
The year 2020 has brought the country unprecedented
challenges. The COVID-19 pandemic, which began early
this year and continues today, has caused immense loss and
vast disruption. As this is a presidential election year, the
pandemic has also presented unique challenges regarding
where and how citizens shall vote, as well as when and how
their ballots shall be tabulated. The appeal on which we now
rule stems from the disruption COVID-19 has wrought on
the national elections. We reach our decision, detailed below,
having carefully considered the full breadth of statutory
law and constitutional authority applicable to this unique
dispute over Pennsylvania election law. And we do so with
commitment to a proposition indisputable in our democratic
process: that the lawfully cast vote of every citizen must
count.

I. Background & Procedural History
A. The Elections and Presidential Electors Clause
The U.S. Constitution delegates to state “Legislature[s]”
the authority to regulate the “Times, Places and Manner of
holding Elections for Senators and Representatives,” subject
to Congress's ability to “make or alter such Regulations.”
U.S. Const. art. I, § 4, cl. 1. This provision is known as the
“Elections Clause.” The Elections Clause effectively gives
state governments the “default” authority to regulate the
mechanics of federal elections, Foster v. Love, 522 U.S. 67,
69, 118 S.Ct. 464, 139 L.Ed.2d 369 (1997), with Congress
retaining “exclusive control” to “make or alter” any state's
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S.Ct.
1198, 90 L.Ed. 1432 (1946). Congress has not often wielded
this power but, “[w]hen exercised, the action of Congress, so
far as it extends and conflicts with the regulations of the State,
necessarily supersedes them.” Ex Parte Siebold, 100 U.S.

371, 384, 399, 25 L.Ed. 717 (1879) (“[T]he Constitution and
constitutional laws of the [United States] are ... the supreme
law of the land; and, when they conflict with the laws of the
States, they are of paramount authority and obligation.”). By
statute, Congress has set “[t]he Tuesday next after the 1st
Monday in November, in every even numbered year,” as the
day for the election. 2 U.S.C. § 7.
Much like the Elections Clause, the “Electors Clause” of the
U.S. Constitution provides that “[e]ach State shall appoint,
in such Manner as the Legislature thereof may direct, a
Number of [Presidential] Electors.” U.S. Const. art. II, §
1, cl. 2. Congress can “determine the Time of chusing the
Electors, and the Day on which they shall give their Votes;
which Day shall be the same throughout the United States.”
U.S. Const. art. II, § 1, cl. 4. Congress has set the time
for appointing electors as “the Tuesday next after the first
Monday in November, in every fourth year succeeding every
election of a President and Vice President.” 3 U.S.C. § 1.
*2 This year, both federal statutes dictate that the day for
the election was to fall on Tuesday, November 3 (“Election
Day”).
B. Pennsylvania's Election Code
In keeping with the Constitution's otherwise broad delegation
of authority to states to regulate the times, places, and manner
of holding federal elections, the Pennsylvania General
Assembly has enacted a comprehensive elections code. In
2019, the General Assembly passed Act 77, which (among
other things) established “no-excuse” absentee voting in
Pennsylvania2: all eligible voters in Pennsylvania may vote
by mail without the need to show their absence from their
voting district on the day of the election. 25 Pa. Stat. and Cons.
Stat. §§ 3150.11–3150.17. Under Act 77, “[a]pplications for
mail-in ballots shall be processed if received not later than
five o'clock P.M. of the first Tuesday prior to the day of
any primary or election.” Id. § 3150.12a(a). After Act 77, “a
completed absentee [or mail-in] ballot must be received in
the office of the county board of elections no later than eight
o'clock P.M. on the day of the primary or election” for that
vote to count. Id. §§ 3146.6(c), 3150.16(c).
C. The Pennsylvania Supreme Court Decision
Soon after Act 77's passage, Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and
several Republican congressional candidates and voters
brought suit against Kathy Boockvar, Secretary of the

Filedto12/07/20
4 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1181 Case

3

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Commonwealth of Pennsylvania, and all of Pennsylvania's
county boards of elections. That suit, filed in the Western
District of Pennsylvania, alleged that Act 77's “no-excuse”
mail-in voting regime violated both the federal and
Pennsylvania constitutions. Donald J. Trump for Pres., Inc. v.
Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––, 2020
WL 4920952, at *1 (W.D. Pa. Aug. 23, 2020). Meanwhile,
the Pennsylvania Democratic Party and several Democratic
elected officials and congressional candidates filed suit in
Pennsylvania's Commonwealth Court, seeking declaratory
and injunctive relief related to statutory-interpretation issues
involving Act 77 and the Pennsylvania Election Code. See
Pa. Democratic Party v. Boockvar, ––– Pa. ––––, 238 A.3d
345, 352 (2020). Secretary Boockvar asked the Pennsylvania
Supreme Court to exercise extraordinary jurisdiction to allow
it to immediately consider the case, and her petition was
granted without objection. Id. at 354–55.
Pending resolution of the Pennsylvania Supreme Court case,
Secretary Boockvar requested that the Western District of
Pennsylvania stay the federal case. Trump for Pres. v.
Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at *1.
The District Court obliged and concluded that it would abstain
under Railroad Commission of Texas v. Pullman Co., 312 U.S.
496, 61 S.Ct. 643, 85 L.Ed. 971 (1941). See Trump for Pres.
v. Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at
*21. The RNC then filed a motion for limited preliminary
injunctive relief asking that all mailed ballots be segregated,
but the District Court denied the motion, finding that the
plaintiffs’ harm had “not yet materialized in any actualized or
imminent way.” Donald J. Trump for Pres., Inc. v. Boockvar,
No. 2:20-cv-966, 2020 WL 5407748, at *1 (W.D. Pa. Sept.
8, 2020).
*3 With the federal case stayed, the state court matter
proceeded. The Pennsylvania Democratic Party argued that
a combination of the COVID-19 pandemic and U.S. Postal
Service (“USPS”) mail-delivery delays made it difficult for
absentee voters to timely return their ballots in the June 2020
Pennsylvania primary election. Pa. Democratic Party, 238
A.3d at 362. The Pennsylvania Democratic Party claimed
that this voter disenfranchisement violated the Pennsylvania
Constitution's Free and Equal Elections Clause, art I., § 5,3
and sought, among other things, a weeklong extension of the
deadline for receipt of ballots cast by Election Day in the
upcoming general election—the same deadline for the receipt
of ballots cast by servicemembers residing overseas. Id. at
353–54. Secretary Boockvar originally opposed the extension
deadline; she changed her position after receiving a letter

from USPS General Counsel which stated that Pennsylvania's
ballot deadlines were “incongruous with the Postal Service's
delivery standards,” and that to ensure that a ballot in
Pennsylvania would be received by 8:00 P.M. on Election
Day, the voter would need to mail it a full week in advance,
by October 27, which was also the deadline to apply for a
mail-in ballot. Id. at 365–66; 25 Pa. Stat. and Cons. Stat. §
3150.12a(a). Secretary Boockvar accordingly recommended
a three-day extension to the received-by deadline. Pa.
Democratic Party, 238 A.3d at 364–65.
In a September 17, 2020 decision, the Pennsylvania Supreme
Court concluded that USPS's existing delivery standards
could not meet the timeline built into the Election Code and
that circumstances beyond voters’ control should not lead to
their disenfranchisement. Pa. Democratic Party, 238 A.3d
at 371. The Court accordingly held that the Pennsylvania
Constitution's Free and Equal Elections Clause required a
three-day extension of the ballot-receipt deadline for the
November 3 general election. Id. at 371, 386–87. All ballots
postmarked by 8:00 P.M. on Election Day and received
by 5:00 P.M. on the Friday after Election Day, November
6, would be considered timely and counted (“Deadline
Extension”). Id. at 386–87. Ballots postmarked or signed
after Election Day, November 3, would be rejected. Id. If the
postmark on a ballot received before the November 6 deadline
was missing or illegible, the ballot would be presumed to be
timely unless “a preponderance of the evidence demonstrates
that it was mailed after Election Day” (“Presumption of
Timeliness”). Id. Shortly after the ruling, Pennsylvania voters
were notified of the Deadline Extension and Presumption of
Timeliness.
D. Appeal to the U.S. Supreme Court, and This
Litigation
The Republican Party of Pennsylvania and several
intervenors, including the President pro tempore of the
Pennsylvania Senate, sought to challenge in the Supreme
Court of the United States the constitutionality of the
Pennsylvania Supreme Court's ruling. Because the November
election date was fast approaching, they filed an emergency
application for a stay of the Pennsylvania Supreme Court's
order pending review on the merits. The U.S. Supreme
Court denied the emergency stay request in a 4-4 decision.
Republican Party of Pa. v. Boockvar, No. 20A54, 592
U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL
6128193 (Oct. 19, 2020); Scarnati v. Boockvar, No. 20A53,
592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020
WL 6128194 (Oct. 19, 2020). After denial of the stay, the

Filedto12/07/20
5 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1182 Case

4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

petitioners moved for expedited consideration of their petition
for certiorari. In denying that motion, Justice Alito noted that,
per the Pennsylvania Attorney General, all county boards
of elections would segregate ballots received during the
Deadline Extension period from those received by 8:00 P.M.
on Election Day. Republican Party of Pa. v. Boockvar, No.
20-542, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d
––––, 2020 WL 6304626, at *2 (Oct. 28, 2020) (Alito, J.,
statement). Justice Alito later issued an order requiring that all
county boards of elections segregate such ballots and count
them separately. Republican Party of Pa. v. Boockvar, No.
20A84, ––– U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6536912 (Mem.) (U.S. Nov. 6, 2020) (Alito, J.).
*4 In the meantime, on October 22, 2020, three days after
the U.S. Supreme Court declined to stay the Pennsylvania
Supreme Court's order, Plaintiffs herein filed this suit in
the Western District of Pennsylvania. Plaintiffs are four
registered voters from Somerset County, Pennsylvania, who
planned to vote in person on Election Day (“Voter Plaintiffs”)
and Pennsylvania congressional candidate Jim Bognet.
Defendants are Secretary Boockvar and each Pennsylvania
county's board of elections.
Bognet, the congressional candidate, claimed that the
Deadline Extension and Presumption of Timeliness “allow[ ]
County Boards of Elections to accept votes ... that would
otherwise be unlawful” and “undermine[ ] his right to run in
an election where Congress has paramount authority to set
the ‘times, places, and manner’ ” of Election Day. Bognet
v. Boockvar, No. 3:20-cv-215, 2020 WL 6323121, at *2
(W.D. Pa. Oct. 28, 2020). The Voter Plaintiffs alleged that by
voting in person, they had to comply with the single, uniform
federal Election Day deadline, whereas mail-in voters could
submit votes any time before 5:00 P.M. on November 6.
Id. Thus, they alleged, the Pennsylvania Supreme Court
treated them in an arbitrary and disparate way by elevating
mail-in voters to a “preferred class of voters” in violation
of the U.S. Constitution's Equal Protection Clause and the
single, uniform, federal Election Day set by Congress. Id. The
Voter Plaintiffs also asserted that counting ballots received
after Election Day during the Deadline Extension period
would unlawfully dilute their votes in violation of the Equal
Protection Clause. Id.
All Plaintiffs sought to enjoin Defendants from counting
ballots received during the Deadline Extension period. Id.
They also sought a declaration that the Deadline Extension
and Presumption of Timeliness are unconstitutional under

the Elections Clause and the Electors Clause as well as the
Equal Protection Clause. Id. Because Plaintiffs filed their suit
less than two weeks before Election Day, they moved for a
temporary restraining order (“TRO”), expedited hearing, and
preliminary injunction. Id.
The District Court commendably accommodated Plaintiffs’
request for an expedited hearing, then expeditiously issued
a thoughtful memorandum order on October 28, denying
the motion for a TRO and preliminary injunction. Id. at *7.
The District Court held that Bognet lacked standing because
his claims were too speculative and not redressable. Id. at
*3. Similarly, the District Court concluded that the Voter
Plaintiffs lacked standing to bring their Equal Protection
voter dilution claim because they alleged only a generalized
grievance. Id. at *5.
At the same time, the District Court held that the Voter
Plaintiffs had standing to pursue their Equal Protection
arbitrary-and-disparate-treatment claim. But it found that the
Deadline Extension did not engender arbitrary and disparate
treatment because that provision did not extend the period
for mail-in voters to actually cast their ballots; rather, the
extension only directed that the timely cast ballots of mail-in
voters be counted. Id. As to the Presumption of Timeliness,
the District Court held that the Voter Plaintiffs were likely
to succeed on the merits of their arbitrary-and-disparatetreatment challenge. Id. at *6. Still, the District Court declined
to grant a TRO because the U.S. Supreme Court “has
repeatedly emphasized that ... federal courts should ordinarily
not alter the election rules on the eve of an election.” Id. at
*7 (citing Purcell v. Gonzalez, 549 U.S. 1, 127 S.Ct. 5, 166
L.Ed.2d 1 (2006) (per curiam)). The District Court concluded
that with “less than two weeks before the election. ...
[g]ranting the relief Plaintiffs seek would result in significant
voter confusion; precisely the kind of confusion that Purcell
seeks to avoid.” Id.
*5 Plaintiffs appealed the denial of their motion for a TRO
and preliminary injunction to this Court on October 29, less
than a week before Election Day. Plaintiffs requested an
expedited briefing schedule: specifically, their opening brief
would be due on October 30 and the response briefs on
November 2. Notably, Plaintiffs sought to file a reply brief
on November 3—Election Day. Appellants’ Emergency Mot.
for Expedited Briefing, Dkt. No. 17. Defendants opposed
the expedited briefing schedule, arguing that Plaintiffs’ own
delay had caused the case to reach this Court mere days
before the election. Sec'y Boockvar's Opp. to Appellants’

Filedto12/07/20
6 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1183 Case

5

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Emergency Mot. for Expedited Briefing, Dkt. No. 33.
Defendants also contended that Plaintiffs sought to punish
voters by invalidating the very rules mail-in voters had relied
on when they cast their ballots. Defendants asked us to deny
the motion for expedited briefing and offered to supply us
with the actual numbers of mail-in ballots received during
the Deadline Extension period together with an approximate
count of how many of those mail-in ballots lacked legible
postmarks. Id.
Even had we granted Plaintiffs’ motion for expedited briefing,
the schedule they proposed would have effectively foreclosed
us from ruling on this appeal before Election Day. So
we denied Plaintiffs’ motion and instead ordered that their
opening brief be filed by November 6. Order, No. 20-3214,
Oct. 30, 2020, Dkt. No. 37. We directed Defendants to file
response briefs by November 9, forgoing receipt of a reply
4

brief. Id. With the matter now fully briefed, we consider
Plaintiffs’ appeal of the District Court's denial of a TRO and
preliminary injunction.

II. Standard of Review
The District Court exercised jurisdiction under 28 U.S.C. §
1331. We exercise jurisdiction under § 1292(a)(1).
Ordinarily, an order denying a TRO is not immediately
appealable. Hope v. Warden York Cnty. Prison, 956 F.3d 156,
159 (3d Cir. 2020). Here, although Bognet and the Voter
Plaintiffs styled their motion as an Emergency Motion for
a TRO and Preliminary Injunction, see Bognet v. Boockvar,
No. 3:20-cv-00215, Dkt. No. 5 (W.D. Pa. Oct. 22, 2020), the
District Court's order plainly went beyond simply ruling on
the TRO request.
Plaintiffs filed their motion for a TRO and a preliminary
injunction on October 22, along with a supporting brief.
Defendants then filed briefs opposing the motion, with
Plaintiffs filing a reply in support of their motion. The District
Court heard argument from the parties, remotely, during a
90-minute hearing. The next day, the District Court ruled on
the merits of the request for injunctive relief. Bognet, 2020
WL 6323121, at *7. The District Court's Memorandum Order
denied both Bognet and the Voter Plaintiffs the affirmative
relief they sought to obtain prior to Election Day, confirming
that the Commonwealth was to count mailed ballots received
after the close of the polls on Election Day but before 5:00
P.M. on November 6.

In determining whether Bognet and the Voter Plaintiffs had
standing to sue, we resolve a legal issue that does not require
resolution of any factual dispute. Our review is de novo.
Blunt v. Lower Merion Sch. Dist., 767 F.3d 247, 266 (3d
Cir. 2014). “When reviewing a district court's denial of a
preliminary injunction, we review the court's findings of fact
for clear error, its conclusions of law de novo, and the ultimate
decision ... for an abuse of discretion.” Reilly v. City of
Harrisburg, 858 F.3d 173, 176 (3d Cir. 2017) (quoting Bimbo
Bakeries USA, Inc. v. Botticella, 613 F.3d 102, 109 (3d Cir.
2010)) (cleaned up).

III. Analysis
A. Standing
Derived from separation-of-powers principles, the law of
standing “serves to prevent the judicial process from being
used to usurp the powers of the political branches.” Clapper
v. Amnesty Int'l USA, 568 U.S. 398, 408, 133 S.Ct. 1138, 185
L.Ed.2d 264 (2013) (citations omitted). Article III of the U.S.
Constitution vests “[t]he judicial Power of the United States”
in both the Supreme Court and “such inferior Courts as the
Congress may from time to time ordain and establish.” U.S.
Const. art. III, § 1. But this “judicial Power” extends only to
“Cases” and “Controversies.” Id. art. III, § 2; see also Spokeo,
Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547, 194
L.Ed.2d 635 (2016). To ensure that judges avoid rendering
impermissible advisory opinions, parties seeking to invoke
federal judicial power must first establish their standing to do
so. Spokeo, 136 S. Ct. at 1547.
*6 Article III standing doctrine speaks in jargon, but the
gist of its meaning is plain enough. To bring suit, you—and
you personally—must be injured, and you must be injured
in a way that concretely impacts your own protected legal
interests. If you are complaining about something that does
not harm you—and does not harm you in a way that is
concrete—then you lack standing. And if the injury that you
claim is an injury that does no specific harm to you, or if it
depends on a harm that may never happen, then you lack an
injury for which you may seek relief from a federal court.
As we will explain below, Plaintiffs here have not suffered a
concrete, particularized, and non-speculative injury necessary
under the U.S. Constitution for them to bring this federal
lawsuit.

Filedto12/07/20
7 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1184 Case

6

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

The familiar elements of Article III standing require a plaintiff
to have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial decision.”
Id. (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–
61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992); Friends of the
Earth, Inc. v. Laidlaw Env't Servs. (TOC), Inc., 528 U.S. 167,
180–81, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000)). To plead
an injury in fact, the party invoking federal jurisdiction must
establish three sub-elements: first, the “invasion of a legally
protected interest”; second, that the injury is both “concrete
and particularized”; and third, that the injury is “actual or
imminent, not conjectural or hypothetical.” Spokeo, 136 S.
Ct. at 1548 (quoting Lujan, 504 U.S. at 560, 112 S.Ct. 2130);
see also Mielo v. Steak ’n Shake Operations, 897 F.3d 467,
479 n.11 (3d Cir. 2018). The second sub-element requires that
the injury “affect the plaintiff in a personal and individual
way.” Lujan, 504 U.S. at 560 n.1, 112 S.Ct. 2130. As for the
third, when a plaintiff alleges future injury, such injury must
be “certainly impending.” Clapper, 568 U.S. at 409, 133 S.Ct.
1138 (quoting Lujan, 504 U.S. at 565 n.2, 112 S.Ct. 2130).
Allegations of “possible” future injury simply aren't enough.
Id. (quoting Whitmore v. Arkansas, 495 U.S. 149, 158, 110
S.Ct. 1717, 109 L.Ed.2d 135 (1990)). All elements of standing
must exist at the time the complaint is filed. See Lujan, 504
U.S. at 569 n.4, 112 S.Ct. 2130.
With these guideposts in mind, we turn to whether Plaintiffs
have pleaded an Article III injury. They bring several
claims under 42 U.S.C. § 1983, asserting deprivation of
their constitutional rights. They allege that Defendants’
implementation of the Pennsylvania Supreme Court's
Deadline Extension and Presumption of Timeliness violates
the Elections Clause of Article I, the Electors Clause of
Article II, and the Equal Protection Clause of the Fourteenth
Amendment. Because Plaintiffs lack standing to assert these
claims, we will affirm the District Court's denial of injunctive
relief.

1. Plaintiffs lack standing under the Elections Clause and
Electors Clause.
Federal courts are not venues for plaintiffs to assert a bare
right “to have the Government act in accordance with law.”
Allen v. Wright, 468 U.S. 737, 754, 104 S.Ct. 3315, 82 L.Ed.2d
556 (1984), abrogated on other grounds by Lexmark Int'l, Inc.
v. Static Control Components, Inc., 572 U.S. 118, 126–27,
134 S.Ct. 1377, 188 L.Ed.2d 392 (2014). When the alleged

injury is undifferentiated and common to all members of the
public, courts routinely dismiss such cases as “generalized
grievances” that cannot support standing. United States v.
Richardson, 418 U.S. 166, 173–75, 94 S.Ct. 2940, 41 L.Ed.2d
678 (1974). Such is the case here insofar as Plaintiffs, and
specifically candidate Bognet, theorize their harm as the right
to have government administered in compliance with the
Elections Clause and Electors Clause.
To begin with, private plaintiffs lack standing to sue for
alleged injuries attributable to a state government's violations
of the Elections Clause. For example, in Lance v. Coffman,
549 U.S. 437, 127 S.Ct. 1194, 167 L.Ed.2d 29 (2007) (per
curiam), four private citizens challenged in federal district
court a Colorado Supreme Court decision invalidating a
redistricting plan passed by the state legislature and requiring
use of a redistricting plan created by Colorado state courts.
Id. at 438, 127 S.Ct. 1194. The plaintiffs alleged that the
Colorado Supreme Court's interpretation of the Colorado
Constitution violated the Elections Clause “by depriving the
state legislature of its responsibility to draw congressional
districts.” Id. at 441, 127 S.Ct. 1194. The U.S. Supreme Court
held that the plaintiffs lacked Article III standing because
they claimed harm only to their interest, and that of every
citizen, in proper application of the Elections Clause. Id.
at 442, 127 S.Ct. 1194 (“The only injury plaintiffs allege
is that the law—specifically the Elections Clause—has not
been followed.”). Their relief would have no more directly
benefitted them than the public at large. Id. The same is
true here. If anything, Plaintiffs’ “interest in the State's
ability to ‘enforce its duly enacted laws’ ” is even less
compelling because Pennsylvania's “election officials support
the challenged decree.” Republican Nat'l Comm. v. Common
Cause R.I., No. 20A28, 591 U.S. ––––, ––– S.Ct. ––––, ––––,
––– L.Ed.2d ––––, 2020 WL 4680151 (Mem.), at *1 (Aug.
13, 2020) (quoting Abbott v. Perez, ––– U.S. ––––, 138 S. Ct.
2305, 2324 n.17, 201 L.Ed.2d 714 (2018)).
*7 Because the Elections Clause and the Electors Clause
have “considerable similarity,” Ariz. State Legislature v.
Ariz. Indep. Redistricting Comm'n, 576 U.S. 787, 839,
135 S.Ct. 2652, 192 L.Ed.2d 704 (2015) (Roberts, C.J.,
dissenting) (discussing how Electors Clause similarly vests
power to determine manner of appointing electors in “the
Legislature” of each State), the same logic applies to
Plaintiffs’ alleged injury stemming from the claimed violation
of the Electors Clause. See also Foster, 522 U.S. at 69,
118 S.Ct. 464 (characterizing Electors Clause as Elections
Clause's “counterpart for the Executive Branch”); U.S. Term

Filedto12/07/20
8 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1185 Case

7

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Limits, Inc. v. Thornton, 514 U.S. 779, 804–05, 115 S.Ct.
1842, 131 L.Ed.2d 881 (1995) (noting that state's “duty”
under Elections Clause “parallels the duty” described by
Electors Clause).
Even a party that meets Article III standing requirements must
ordinarily rest its claim for relief on violation of its own rights,
not those of a third party. Pitt News v. Fisher, 215 F.3d 354,
361–62 (3d Cir. 2000). Plaintiffs assert that the Pennsylvania
Supreme Court's Deadline Extension and Presumption of
Timeliness usurped the General Assembly's prerogative under
the Elections Clause to prescribe “[t]he Times, Places and
Manner of holding Elections.” U.S. Const. art. I, § 4, cl. 1. The
Elections Clause grants that right to “the Legislature” of “each
State.” Id. Plaintiffs’ Elections Clause claims thus “belong,
if they belong to anyone, only to the Pennsylvania General
Assembly.” Corman v. Torres, 287 F. Supp. 3d 558, 573
(M.D. Pa. 2018) (three-judge panel) (per curiam). Plaintiffs
here are four individual voters and a candidate for federal
office; they in no way constitute the General Assembly, nor
can they be said to comprise any part of the law-making
processes of Pennsylvania. Ariz. State Legislature, 576 U.S.
at 824, 135 S.Ct. 2652.5 Because Plaintiffs are not the General
Assembly, nor do they bear any conceivable relationship to
state lawmaking processes, they lack standing to sue over the
alleged usurpation of the General Assembly's rights under the
Elections and Electors Clauses. No member of the General
Assembly is a party to this lawsuit.
That said, prudential standing can suspend Article III's
general prohibition on a litigant's raising another person's
legal rights. Yet Plaintiffs don't fit the bill. A plaintiff may
assert the rights of another if he or she “has a ‘close’
relationship with the person who possesses the right” and
“there is a ‘hindrance’ to the possessor's ability to protect
his own interests.” Kowalski v. Tesmer, 543 U.S. 125, 130,
125 S.Ct. 564, 160 L.Ed.2d 519 (2004) (citation omitted).
Plaintiffs cannot invoke this exception to the rule against
raising the rights of third parties because they enjoy no close
relationship with the General Assembly, nor have they alleged
any hindrance to the General Assembly's ability to protect its
own interests. See, e.g., Corman, 287 F. Supp. 3d at 573. Nor
does Plaintiffs’ other theory of prudential standing, drawn
from Bond v. United States, 564 U.S. 211, 131 S.Ct. 2355, 180
L.Ed.2d 269 (2011), advance the ball.
*8 In Bond, the Supreme Court held that a litigant has
prudential standing to challenge a federal law that allegedly
impinges on the state's police powers, “in contravention of

constitutional principles of federalism” enshrined in the Tenth
Amendment. Id. at 223–24, 131 S.Ct. 2355. The defendant
in Bond challenged her conviction under 18 U.S.C. § 229,
which Congress enacted to comply with a chemical weapons
treaty that the United States had entered. Id. at 214–15,
131 S.Ct. 2355. Convicted under the statute she sought to
challenge, Bond satisfied Article III's standing requirements.
Id. at 217, 131 S.Ct. 2355 (characterizing Bond's sentence
and incarceration as concrete, and redressable by invalidation
of her conviction); id. at 224–25, 131 S.Ct. 2355 (noting
that Bond was subject to “[a] law,” “prosecution,” and
“punishment” she might not have faced “if the matter were
left for the Commonwealth of Pennsylvania to decide”). She
argued that her conduct was “local in nature” such that §
229 usurped the Commonwealth's reserved police powers.
Id. Rejecting the Government's contention that Bond was
barred as a third party from asserting the rights of the
Commonwealth, id. at 225, 131 S.Ct. 2355, the Court held
that “[t]he structural principles secured by the separation of
powers protect the individual as well” as the State. Id. at 222,
131 S.Ct. 2355 (“Federalism also protects the liberty of all
persons within a State by ensuring that laws enacted in excess
of delegated governmental power cannot direct or control
their actions. ... When government acts in excess of its lawful
powers, that [personal] liberty is at stake.”).
But the nub of Plaintiffs’ argument here is that the
Pennsylvania Supreme Court intruded on the authority
delegated to the Pennsylvania General Assembly under
Articles I and II of the U.S. Constitution to regulate federal
elections. They do not allege any violation of the Tenth
Amendment, which provides that “[t]he powers not delegated
to the United States by the Constitution, nor prohibited by
it to the States, are reserved to the States respectively, or to
the people.” U.S. Const. amend. X. Nor could they. After
all, states have no inherent or reserved power over federal
elections. U.S. Term Limits, 514 U.S. at 804–05, 115 S.Ct.
1842. When “deciding issues raised under the Elections
Clause,” courts “need not be concerned with preserving a
‘delicate balance’ between competing sovereigns.” Gonzalez
v. Arizona, 677 F.3d 383, 392 (9th Cir. 2012). Either federal
and state election law “operate harmoniously in a single
procedural scheme,” or they don't—and the federal law
preempts (“alter[s]”) state election law under the Elections
Clause. Id. at 394. An assessment that the Pennsylvania
Supreme Court lacked the legislative authority under the
state's constitution necessary to comply with the Elections
Clause (Appellants’ Br. 24–27) does not implicate Bond,
the Tenth Amendment, or even Article VI's Supremacy

Filedto12/07/20
9 of 20Works.
Document 55-9
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1186 Case

8

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Clause.6 See Gonzalez, 677 F.3d at 390–92 (contrasting
Elections Clause with Supremacy Clause and describing
former as “unique,” containing “[an] unusual delegation of
power,” and “unlike virtually all other provisions of the
Constitution”). And, of course, third-party standing under
Bond still presumes that the plaintiff otherwise meets the
requirements of Article III; as discussed above, Plaintiffs do
not.

*9 Plaintiffs therefore lack Article III standing to challenge
Defendants’ implementation of the Pennsylvania Supreme
Court's Deadline Extension and Presumption of Timeliness
under the Elections Clause and Electors Clause.

Plaintiff Bognet, a candidate for Congress who is currently a
private citizen, does not plead a cognizable injury by alleging
a “right to run in an election where Congress has paramount
authority,” Compl. ¶ 69, or by pointing to a “threatened”
reduction in the competitiveness of his election from counting
absentee ballots received within three days after Election Day.
Appellants’ Br. 21. Bognet does not explain how that “right
to run” affects him in a particularized way when, in fact,
all candidates in Pennsylvania, including Bognet's opponent,
are subject to the same rules. And Bognet does not explain
how counting more timely cast votes would lead to a less
competitive race, nor does he offer any evidence tending to
show that a greater proportion of mailed ballots received after
Election Day than on or before Election Day would be cast for
Bognet's opponent. What's more, for Bognet to have standing
to enjoin the counting of ballots arriving after Election Day,
such votes would have to be sufficient in number to change the
outcome of the election to Bognet's detriment. See, e.g., Sibley
v. Alexander, 916 F. Supp. 2d 58, 62 (D.D.C. 2013) (“[E]ven
if the Court granted the requested relief, [plaintiff] would
still fail to satisfy the redressability element [of standing]
because enjoining defendants from casting the ... votes would
not change the outcome of the election.” (citing Newdow
v. Roberts, 603 F.3d 1002, 1011 (D.C. Cir. 2010) (citations
omitted)). Bognet does not allege as much, and such a
prediction was inherently speculative when the complaint was
filed. The same can be said for Bognet's alleged wrongfully
incurred expenditures and future expenditures. Any harm
Bognet sought to avoid in making those expenditures was
not “certainly impending”—he spent the money to avoid
a speculative harm. See Donald J. Trump for Pres., Inc.
v. Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––,
2020 WL 5997680, at *36 (W.D. Pa. Oct. 10, 2020). Nor
are those expenditures “fairly traceable” under Article III to
the actions that Bognet challenges. See, e.g., Clapper, 568
U.S. at 402, 416, 133 S.Ct. 1138 (rejecting argument that
plaintiff can “manufacture standing by choosing to make
expenditures based on hypothetical future harm that is not

Stressing the “personal” nature of the right to vote, the
Voter Plaintiffs assert two claims under the Equal Protection

certainly impending”).7

2. The Voter Plaintiffs lack standing under the Equal
Protection Clause.

Clause.8 First, they contend that the influence of their votes,
cast in person on Election Day, is “diluted” both by (a)
mailed ballots cast on or before Election Day but received
between Election Day and the Deadline Extension date,
ballots which Plaintiffs assert cannot be lawfully counted; and
(b) mailed ballots that were unlawfully cast (i.e., placed in
the mail) after Election Day but are still counted because of
the Presumption of Timeliness. Second, the Voter Plaintiffs
allege that the Deadline Extension and the Presumption
of Timeliness create a preferred class of voters based on
“arbitrary and disparate treatment” that values “one person's
vote over that of another.” Bush v. Gore, 531 U.S. 98, 104–05,
121 S.Ct. 525, 148 L.Ed.2d 388 (2000). The Voter Plaintiffs
lack Article III standing to assert either injury.

a. Vote Dilution
As discussed above, the foremost element of standing is injury
in fact, which requires the plaintiff to show a harm that is both
“concrete and particularized” and “actual or imminent, not
conjectural or hypothetical.” Spokeo, 136 S. Ct. at 1547–48
(citation omitted). The Voter Plaintiffs lack standing to redress
their alleged vote dilution because that alleged injury is not
concrete as to votes counted under the Deadline Extension,
nor is it particularized for Article III purposes as to votes
counted under the Deadline Extension or the Presumption of
Timeliness.

i. No concrete injury from vote dilution attributable to the
Deadline Extension.
The Voter Plaintiffs claim that Defendants’ implementation of
the Deadline Extension violates the Equal Protection Clause
because “unlawfully” counting ballots received within three
days of Election Day dilutes their votes. But the source of this

2:20-cv-01771-PP
12/07/20
Page
10 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1187 Case

9

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

purported illegality is necessarily a matter of state law, which
makes any alleged harm abstract for purposes of the Equal
Protection Clause. And the purported vote dilution is also not
concrete because it would occur in equal proportion without
the alleged procedural illegality—that is, had the General
Assembly enacted the Deadline Extension, which the Voter
Plaintiffs do not challenge substantively.9
*10 The concreteness of the Voter Plaintiffs’ alleged vote
dilution stemming from the Deadline Extension turns on the
federal and state laws applicable to voting procedures. Federal
law does not provide for when or how ballot counting occurs.
See, e.g., Trump for Pres., Inc. v. Way, No. 20-cv-01753, –––
F.Supp.3d ––––, ––––, 2020 WL 5912561, at *12 (D.N.J.
Oct. 6, 2020) (“Plaintiffs direct the Court to no federal law
regulating methods of determining the timeliness of mail-in
ballots or requiring that mail-in ballots be postmarked.”); see
also Smiley v. Holm, 285 U.S. 355, 366, 52 S.Ct. 397, 76 L.Ed.
795 (1932) (noting that Elections Clause delegates to state
lawmaking processes all authority to prescribe “procedure
and safeguards” for “counting of votes”). Instead, the
Elections Clause delegates to each state's lawmaking function
the authority to prescribe such procedural regulations
applicable to federal elections. U.S. Term Limits, 514 U.S.
at 832–35, 115 S.Ct. 1842 (“The Framers intended the
Elections Clause to grant States authority to create procedural
regulations .... [including] ‘whether the electors should vote
by ballot or vivâ voce ....’ ” (quoting James Madison, 2
Records of the Federal Convention of 1787, at 240 (M.
Farrand ed. 1911) (cleaned up)); Smiley, 285 U.S. at 366, 52
S.Ct. 397 (describing state authority under Elections Clause
“to provide a complete code for congressional elections ...
in relation to notices, registration, supervision of voting,
protection of voters, prevention of fraud and corrupt practices,
counting of votes, duties of inspectors and canvassers, and
making and publication of election returns”). That delegation
of authority embraces all procedures “which experience
shows are necessary in order to enforce the fundamental right
involved.” Smiley, 285 U.S. at 366, 52 S.Ct. 397. Congress
exercises its power to “alter” state election regulations only if
the state regime cannot “operate harmoniously” with federal
election laws “in a single procedural scheme.” Gonzalez, 677
F.3d at 394.
The Deadline Extension and federal laws setting the date for
federal elections can, and indeed do, operate harmoniously.
At least 19 other States and the District of Columbia have
post-Election Day absentee ballot receipt deadlines.10 And
many States also accept absentee ballots mailed by overseas

uniformed servicemembers that are received after Election
Day, in accordance with the federal Uniformed and Overseas
Citizens Absentee Voting Act, 52 U.S.C. §§ 20301–20311.
So the Voter Plaintiffs’ only cognizable basis for alleging
dilution from the “unlawful” counting of invalid ballots
is state law defining lawful and unlawful ballot counting
practices. Cf. Wise v. Circosta, 978 F.3d 93, 100–01 (4th
Cir. 2020) (“Whether ballots are illegally counted if they are
received more than three days after Election Day depends on
an issue of state law from which we must abstain.” (emphasis
in original)), application for injunctive relief denied sub
nom. Moore v. Circosta, No. 20A72, 592 U.S. ––––, –––
S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6305036 (Oct.
28, 2020). The Voter Plaintiffs seem to admit as much,
arguing “that counting votes that are unlawful under the
General Assembly's enactments will unconstitutionally dilute
the lawful votes” cast by the Voter Plaintiffs. Appellants’
Br. 38; see also id. at 31. In other words, the Voter
Plaintiffs say that the Election Day ballot receipt deadline
in Pennsylvania's codified election law renders the ballots
untimely and therefore unlawful to count. Defendants, for
their part, contend that the Pennsylvania Supreme Court's
extension of that deadline under the Free and Equal Elections
Clause of the state constitution renders them timely, and
therefore lawful to count.
*11 This conceptualization of vote dilution—state actors
counting ballots in violation of state election law—is not
a concrete harm under the Equal Protection Clause of the
Fourteenth Amendment. Violation of state election laws by
state officials or other unidentified third parties is not always
amenable to a federal constitutional claim. See Shipley v.
Chicago Bd. of Election Comm'rs, 947 F.3d 1056, 1062 (7th
Cir. 2020) (“A deliberate violation of state election laws
by state election officials does not transgress against the
Constitution.”) (cleaned up); Powell v. Power, 436 F.2d 84,
88 (2d Cir. 1970) (rejecting Equal Protection Clause claim
arising from state's erroneous counting of votes cast by voters
unqualified to participate in closed primary). “It was not
intended by the Fourteenth Amendment ... that all matters
formerly within the exclusive cognizance of the states should
become matters of national concern.” Snowden v. Hughes,
321 U.S. 1, 11, 64 S.Ct. 397, 88 L.Ed. 497 (1944).
Contrary to the Voter Plaintiffs’ conceptualization, vote
dilution under the Equal Protection Clause is concerned
with votes being weighed differently. See Rucho v. Common
Cause, ––– U.S. ––––, 139 S. Ct. 2484, 2501, 204 L.Ed.2d
931 (2019) (“ ‘[V]ote dilution’ in the one-person, one-

2:20-cv-01771-PP
12/07/20
Page
11 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1188 Case

10

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

vote cases refers to the idea that each vote must carry
equal weight.” (emphasis added)); cf. Baten v. McMaster,
967 F.3d 345, 355 (4th Cir. 2020), as amended (July 27,
2020) (“[N]o vote in the South Carolina system is diluted.
Every qualified person gets one vote and each vote is
counted equally in determining the final tally.”). As explained
below, the Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes were
weighted differently. Instead, Plaintiffs advance an Equal
Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal
treatment. And if dilution of lawfully cast ballots by the
“unlawful” counting of invalidly cast ballots “were a true
equal-protection problem, then it would transform every
violation of state election law (and, actually, every violation
of every law) into a potential federal equal-protection claim
requiring scrutiny of the government's ‘interest’ in failing
to do more to stop the illegal activity.” Trump for Pres. v.
Boockvar, ––– F.Supp.3d at –––– – ––––, 2020 WL 5997680,
at *45–46. That is not how the Equal Protection Clause
works.11
Even if we were to entertain an end-run around the Voter
Plaintiffs’ lack of Elections Clause standing—by viewing the
federal Elections Clause as the source of “unlawfulness” of
Defendants’ vote counting—the alleged vote dilution would
not be a concrete injury. Consider, as we've noted, that the
Voter Plaintiffs take no issue with the content of the Deadline
Extension; they concede that the General Assembly, as other
state legislatures have done, could have enacted exactly the
same Deadline Extension as a valid “time[ ], place[ ], and
manner” regulation consistent with the Elections Clause.
Cf. Snowden, 321 U.S. at 8, 64 S.Ct. 397 (concluding that
alleged “unlawful administration by state officers of a state
statute fair on its face, resulting in its unequal application
to those who are entitled to be treated alike, is not a denial
of equal protection” (emphasis added)); Powell, 436 F.2d
at 88 (“Uneven or erroneous application of an otherwise
valid statute constitutes a denial of equal protection only
if it represents ‘intentional or purposeful discrimination.’
” (emphasis added) (quoting Snowden, 321 U.S. at 8, 64
S.Ct. 397)). Reduced to its essence, the Voter Plaintiffs’
claimed vote dilution would rest on their allegation that
federal law required a different state organ to issue the
Deadline Extension. The Voter Plaintiffs have not alleged,
for example, that they were prevented from casting their
votes, Guinn v. United States, 238 U.S. 347, 35 S.Ct. 926,
59 L.Ed. 1340 (1915), nor that their votes were not counted,
United States v. Mosley, 238 U.S. 383, 35 S.Ct. 904, 59

L.Ed. 1355 (1915). Any alleged harm of vote dilution that
turns not on the proportional influence of votes, but solely
on the federal illegality of the Deadline Extension, strikes
us as quintessentially abstract in the election law context
and “divorced from any concrete harm.” Spokeo, 136 S.
Ct. at 1549 (citing Summers v. Earth Island Inst., 555 U.S.
488, 496, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009)). That
the alleged violation here relates to election law and the
U.S. Constitution, rather than the mine-run federal consumer
privacy statute, does not abrogate the requirement that a
concrete harm must flow from the procedural illegality. See,
e.g., Lujan, 504 U.S. at 576, 112 S.Ct. 2130 (“[T]here is
absolutely no basis for making the Article III inquiry turn on
the source of the asserted right.”).
*12 The Voter Plaintiffs thus lack a concrete Equal
Protection Clause injury for their alleged harm of vote
dilution attributable to the Deadline Extension.

ii. No particularized injury from votes counted under the
Deadline Extension or the Presumption of Timeliness.
The opposite of a “particularized” injury is a “generalized
grievance,” where “the impact on plaintiff is plainly
undifferentiated and common to all members of the public.”
Id. at 575, 112 S.Ct. 2130 (cleaned up); see also Lance, 549
U.S. at 439, 127 S.Ct. 1194. The District Court correctly held
that the Voter Plaintiffs’ “dilution” claim is a “paradigmatic
generalized grievance that cannot support standing.” Bognet,
2020 WL 6323121, at *4 (quoting Carson v. Simon, No. 20cv-02030, ––– F.Supp.3d ––––, ––––, 2020 WL 6018957,
at *7 (D. Minn. Oct. 12, 2020), rev'd on other grounds,
No. 20-3139, ––– F.3d ––––, 2020 WL 6335967 (8th Cir.
Oct. 29, 2020)). The Deadline Extension and Presumption
of Timeliness, assuming they operate to allow the illegal
counting of unlawful votes, “dilute” the influence of all voters
in Pennsylvania equally and in an “undifferentiated” manner
and do not dilute a certain group of voters particularly.12
Put another way, “[a] vote cast by fraud or mailed in by
the wrong person through mistake,” or otherwise counted
illegally, “has a mathematical impact on the final tally
and thus on the proportional effect of every vote, but no
single voter is specifically disadvantaged.” Martel v. Condos,
No. 5:20-cv-00131, ––– F.Supp.3d ––––, ––––, 2020 WL
5755289, at *4 (D. Vt. Sept. 16, 2020). Such an alleged
“dilution” is suffered equally by all voters and is not
“particularized” for standing purposes. The courts to consider

2:20-cv-01771-PP
12/07/20
Page
12 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1189 Case

11

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

this issue are in accord. See id.; Carson, ––– F.Supp.3d at
–––– – ––––, 2020 WL 6018957, at *7–8; Moore v. Circosta,
Nos. 1:20-cv-00911, 1:20-cv-00912, ––– F.Supp.3d ––––,
––––, 2020 WL 6063332, at *14 (M.D.N.C. Oct. 14, 2020),
emergency injunction pending appeal denied sub nom. Wise
v. Circosta, 978 F.3d 93 (4th Cir. 2020), application for
injunctive relief denied sub nom. Moore v. Circosta, No.
20A72, 592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6305036 (U.S. Oct. 28, 2020); Paher v. Cegavske,
457 F. Supp. 3d 919, 926–27 (D. Nev. Apr. 30, 2020).
But the Voter Plaintiffs argue that their purported “vote
dilution” is an injury in fact sufficient to confer standing, and
not a generalized grievance belonging to all voters, because
the Supreme Court has “long recognized that a person's
right to vote is ‘individual and personal in nature.’ ” Gill v.
Whitford, ––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d
313 (2018) (quoting Reynolds v. Sims, 377 U.S. 533, 561, 84
S.Ct. 1362, 12 L.Ed.2d 506 (1964)). “Thus, ‘voters who allege
facts showing disadvantage to themselves as individuals have
standing to sue’ to remedy that disadvantage.” Id. (quoting
Baker v. Carr, 369 U.S. 186, 206, 82 S.Ct. 691, 7 L.Ed.2d 663
(1962)).
*13 The Voter Plaintiffs’ reliance on this language
from Baker and Reynolds is misplaced. In Baker, the
plaintiffs challenged Tennessee's apportionment of seats in its
legislature as violative of the Equal Protection Clause of the
Fourteenth Amendment. 369 U.S. at 193, 82 S.Ct. 691. The
Supreme Court held that the plaintiffs did have standing under
Article III because “[t]he injury which appellants assert is that
this classification disfavors the voters in the counties in which
they reside, placing them in a position of constitutionally
unjustifiable inequality vis-à-vis voters in irrationally favored
counties.” Id. at 207–08, 82 S.Ct. 691.
Although the Baker Court did not decide the merits of the
Equal Protection claim, the Court in a series of cases—
including Gray v. Sanders, 372 U.S. 368, 83 S.Ct. 801,
9 L.Ed.2d 821 (1963), and Reynolds—made clear that the
Equal Protection Clause prohibits a state from “diluti[ng] ...
the weight of the votes of certain ... voters merely because
of where they reside[ ],” just as it prevents a state from
discriminating on the basis of the voter's race or sex.
Reynolds, 377 U.S. at 557, 84 S.Ct. 1362 (emphasis added).
The Voter Plaintiffs consider it significant that the Court in
Reynolds noted—though not in the context of standing—that
“the right to vote” is “individual and personal in nature.”
Id. at 561, 84 S.Ct. 1362 (quoting United States v. Bathgate,

246 U.S. 220, 227, 38 S.Ct. 269, 62 L.Ed. 676 (1918)). The
Court then explained that a voter's right to vote encompasses
both the right to cast that vote and the right to have that vote
counted without “debasement or dilution”:
The right to vote can neither be denied outright, Guinn
v. United States, 238 U.S. 347 [35 S.Ct. 926, 59 L.Ed.
1340 (1915) ], Lane v. Wilson, 307 U.S. 268 [59 S.Ct.
872, 83 L.Ed. 1281 (1939) ], nor destroyed by alteration
of ballots, see United States v. Classic, 313 U.S. 299, 315
[61 S.Ct. 1031, 85 L.Ed. 1368 (1941) ], nor diluted by
ballot-box stuffing, Ex parte Siebold, 100 U.S. 371 [25
L.Ed. 717 (1880) ], United States v. Saylor, 322 U.S. 385
[64 S.Ct. 1101, 88 L.Ed. 1341 (1944) ]. As the Court
stated in Classic, “Obviously included within the right to
choose, secured by the Constitution, is the right of qualified
voters within a state to cast their ballots and have them
counted ....” 313 U.S. at 315 [61 S.Ct. 1031].
...
“The right to vote includes the right to have the ballot
counted. ... It also includes the right to have the vote
counted at full value without dilution or discount. ... That
federally protected right suffers substantial dilution ...
[where a] favored group has full voting strength ... [and]
[t]he groups not in favor have their votes discounted.”
Reynolds, 377 U.S. at 555 & n.29, 84 S.Ct. 1362 (alterations
in last paragraph in original) (quoting South v. Peters, 339
U.S. 276, 279, 70 S.Ct. 641, 94 L.Ed. 834 (1950) (Douglas,
J., dissenting)).
Still, it does not follow from the labeling of the right to vote as
“personal” in Baker and Reynolds that any alleged illegality
affecting voting rights rises to the level of an injury in fact.
After all, the Court has observed that the harms underlying
a racial gerrymandering claim under the Equal Protection
Clause “are personal” in part because they include the harm of
a voter “being personally subjected to a racial classification.”
Ala. Legis. Black Caucus v. Alabama, 575 U.S. 254, 263,
135 S.Ct. 1257, 191 L.Ed.2d 314 (2015) (cleaned up). Yet a
voter “who complains of gerrymandering, but who does not
live in a gerrymandered district, ‘assert[s] only a generalized
grievance against governmental conduct of which he or she
does not approve.’ ” Gill, 138 S. Ct. at 1930 (quoting United
States v. Hays, 515 U.S. 737, 745, 115 S.Ct. 2431, 132
L.Ed.2d 635 (1995)) (alteration in original). The key inquiry
for standing is whether the alleged violation of the right to
vote arises from an invidious classification—including those
based on “race, sex, economic status, or place of residence

2:20-cv-01771-PP
12/07/20
Page
13 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1190 Case

12

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

within a State,” Reynolds, 377 U.S. at 561, 84 S.Ct. 1362—
to which the plaintiff is subject and in which “the favored
group has full voting strength and the groups not in favor
have their votes discounted,” id. at 555 n.29, 84 S.Ct. 1362
(cleaned up). In other words, “voters who allege facts showing
disadvantage to themselves” have standing to bring suit to
remedy that disadvantage, Baker, 369 U.S. at 206, 82 S.Ct.
691 (emphasis added), but a disadvantage to the plaintiff
exists only when the plaintiff is part of a group of voters whose
votes will be weighed differently compared to another group.
Here, no Pennsylvania voter's vote will count for less than that
of any other voter as a result of the Deadline Extension and
Presumption of Timeliness.13
*14 This conclusion cannot be avoided by describing
one group of voters as “those ... who lawfully vote in
person and submit their ballots on time” and the other
group of voters as those whose (mail-in) ballots arrive
after Election Day and are counted because of the Deadline
Extension and/or the Presumption of Timeliness. Appellants’
Br. 33 (emphasis in original). Although the former group,
under Plaintiffs’ theory, should make up 100% of the total
votes counted and the latter group 0%, there is simply no
differential weighing of the votes. See Wise, 978 F.3d at
104 (Motz, J., concurring) (“But if the extension went into
effect, plaintiffs’ votes would not count for less relative to
other North Carolina voters. This is the core of an Equal
Protection Clause challenge.” (emphasis in original)). Unlike
the malapportionment or racial gerrymandering cases, a vote
cast by a voter in the so-called “favored” group counts not one
bit more than the same vote cast by the “disfavored” group—
no matter what set of scales one might choose to employ. Cf.
Reynolds, 377 U.S. at 555 n.29, 84 S.Ct. 1362. And, however
one tries to draw a contrast, this division is not based on
a voter's personal characteristics at all, let alone a person's
race, sex, economic status, or place of residence. Two voters
could each have cast a mail-in ballot before Election Day at
the same time, yet perhaps only one of their ballots arrived
by 8:00 P.M. on Election Day, given USPS's mail delivery
process. It is passing strange to assume that one of these voters
would be denied “equal protection of the laws” were both
votes counted. U.S. Const. amend. XIV, § 1.
The Voter Plaintiffs also emphasize language from Reynolds
that “[t]he right to vote can neither be denied outright ... nor
diluted by ballot-box stuffing.” 377 U.S. at 555, 84 S.Ct. 1362
(citing Ex parte Siebold, 100 U.S. 371, 25 L.Ed. 717 (1879);
United States v. Saylor, 322 U.S. 385, 64 S.Ct. 1101, 88 L.Ed.
1341 (1944)). In the first place, casting a vote in accordance

with a procedure approved by a state's highest court—even
assuming that approval violates the Elections Clause—is not
equivalent to “ballot-box stuffing.” The Supreme Court has
only addressed this “false”-tally type of dilution where the
tally was false as a result of a scheme to cast falsified or
fraudulent votes. See Saylor, 322 U.S. at 386, 64 S.Ct. 1101.
We are in uncharted territory when we are asked to declare
that a tally that includes false or fraudulent votes is equivalent
to a tally that includes votes that are or may be unlawful
for non-fraudulent reasons, and so is more aptly described as
“incorrect.” Cf. Gray, 372 U.S. at 386, 83 S.Ct. 801 (Harlan,
J., dissenting) (“[I]t is hard to take seriously the argument
that ‘dilution’ of a vote in consequence of a legislatively
sanctioned electoral system can, without more, be analogized
to an impairment of the political franchise by ballot box
stuffing or other criminal activity.”).
Yet even were this analogy less imperfect, it still would not
follow that every such “false” or incorrect tally is an injury
in fact for purposes of an Equal Protection Clause claim. The
Court's cases that describe ballot-box stuffing as an injury
to the right to vote have arisen from criminal prosecutions
under statutes making it unlawful for anyone to injure the
exercise of another's constitutional right. See, e.g., Ex parte
Siebold, 100 U.S. at 373–74 (application for writ of habeas
corpus); Saylor, 322 U.S. at 385–86, 64 S.Ct. 1101 (criminal
appeal regarding whether statute prohibiting “conspir[ing]
to injure ... any citizen in the free exercise ... of any right
or privilege secured to him by the Constitution” applied to
conspiracy to stuff ballot boxes); Anderson v. United States,
417 U.S. 211, 226, 94 S.Ct. 2253, 41 L.Ed.2d 20 (1974)
(criminal prosecution for conspiracy to stuff ballot boxes
under successor to statute in Saylor). Standing was, of course,
never an issue in those cases because the Government was
enforcing its criminal laws. Here, the Voter Plaintiffs, who
bear the burden to show standing, have presented no instance
in which an individual voter had Article III standing to claim
an equal protection harm to his or her vote from the existence
of an allegedly illegal vote cast by someone else in the same
election.
Indeed, the logical conclusion of the Voter Plaintiffs’ theory
is that whenever an elections board counts any ballot that
deviates in some way from the requirements of a state's
legislatively enacted election code, there is a particularized
injury in fact sufficient to confer Article III standing on every
other voter—provided the remainder of the standing analysis
is satisfied. Allowing standing for such an injury strikes us
as indistinguishable from the proposition that a plaintiff has

2:20-cv-01771-PP
12/07/20
Page
14 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1191 Case

13

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Article III standing to assert a general interest in seeing
the “proper application of the Constitution and laws”—a
proposition that the Supreme Court has firmly rejected. Lujan,
504 U.S. at 573–74, 112 S.Ct. 2130. The Voter Plaintiffs thus
lack standing to bring their Equal Protection vote dilution
claim.

b. Arbitrary and Disparate Treatment
*15 The Voter Plaintiffs also lack standing to allege an
injury in the form of “arbitrary and disparate treatment”
of a preferred class of voters because the Voter Plaintiffs
have not alleged a legally cognizable “preferred class” for
equal protection purposes, and because the alleged harm from
votes counted solely due to the Presumption of Timeliness is
hypothetical or conjectural.

i. No legally protected “preferred class.”
The District Court held that the Presumption of Timeliness
creates a “preferred class of voters” who are “able to cast
their ballots after the congressionally established Election
Day” because it “extends the date of the election by multiple
days for a select group of mail-in voters whose ballots will
be presumed to be timely in the absence of a verifiable
postmark.”14 Bognet, 2020 WL 6323121, at *6. The District
Court reasoned, then, that the differential treatment between
groups of voters is by itself an injury for standing purposes.
To the District Court, this supposed “unequal treatment of
voters ... harms the [Voter] Plaintiffs because, as in-person
voters, they must vote by the end of the congressionally
established Election Day in order to have their votes counted.”
Id. The District Court cited no case law in support of its
conclusion that the injury it identified gives rise to Article III
standing.
The District Court's analysis suffers from several flaws. First,
the Deadline Extension and Presumption of Timeliness apply
to all voters, not just a subset of “preferred” voters. It is an
individual voter's choice whether to vote by mail or in person,
and thus whether to become a part of the so-called “preferred
class” that the District Court identified. Whether to join the
“preferred class” of mail-in voters was entirely up to the Voter
Plaintiffs.
Second, it is not clear that the mere creation of so-called
“classes” of voters constitutes an injury in fact. An injury in

fact requires the “invasion of a legally protected interest.”
Lujan, 504 U.S. at 560, 112 S.Ct. 2130. We doubt that
the mere existence of groupings of voters qualifies as an
injury per se. “An equal protection claim will not lie by
‘conflating all persons not injured into a preferred class
receiving better treatment’ than the plaintiff.” Thornton v. City
of St. Helens, 425 F.3d 1158, 1167 (9th Cir. 2005) (quoting
Joyce v. Mavromatis, 783 F.2d 56, 57 (6th Cir. 1986)); see
also, e.g., Batra v. Bd. of Regents of Univ. of Neb., 79 F.3d 717,
721 (8th Cir. 1996) (“[T]he relevant prerequisite is unlawful
discrimination, not whether plaintiff is part of a victimized
class.”). More importantly, the Voter Plaintiffs have shown
no disadvantage to themselves that arises simply by being
separated into groupings. For instance, there is no argument
that it is inappropriate that some voters will vote in person and
others will vote by mail. The existence of these two groups of
voters, without more, simply does not constitute an injury in
fact to in-person voters.
Plaintiffs may believe that injury arises because of a
preference shown for one class over another. But what,
precisely, is the preference of which Plaintiffs complain? In
Bush v. Gore, the Supreme Court held that a State may not
engage in arbitrary and disparate treatment that results in
the valuation of one person's vote over that of another. 531
U.S. at 104–05, 121 S.Ct. 525. Thus, “the right of suffrage
can be denied by a debasement or dilution of the weight of
a citizen's vote just as effectively as by wholly prohibiting
the free exercise of the franchise.” Id. at 105, 121 S.Ct. 525
(quoting Reynolds, 377 U.S. at 555, 84 S.Ct. 1362) (emphasis
added). As we have already discussed, vote dilution is not an
injury in fact here.
*16 What about the risk that some ballots placed in the
mail after Election Day may still be counted? Recall that
no voter—whether in person or by mail—is permitted to
vote after Election Day. Under Plaintiffs’ argument, it might
theoretically be easier for one group of voters—mail-in voters
—to illegally cast late votes than it is for another group of
voters—in-person voters. But even if that is the case, no
group of voters has the right to vote after the deadline.15 We
remember that “a private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.”
Linda R.S. v. Richard D., 410 U.S. 614, 619, 93 S.Ct. 1146, 35
L.Ed.2d 536 (1973) (citations omitted). And “a plaintiff lacks
standing to complain about his inability to commit crimes
because no one has a right to commit a crime.” Citizen Ctr.
v. Gessler, 770 F.3d 900, 910 (10th Cir. 2014). Without a
showing of discrimination or other intentionally unlawful

2:20-cv-01771-PP
12/07/20
Page
15 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1192 Case

14

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

conduct, or at least some burden on Plaintiffs’ own voting
rights, we discern no basis on which they have standing to
challenge the slim opportunity the Presumption of Timeliness
conceivably affords wrongdoers to violate election law. Cf.
Minn. Voters Alliance v. Ritchie, 720 F.3d 1029, 1033 (8th Cir.
2013) (affirming dismissal of claims “premised on potential
harm in the form of vote dilution caused by insufficient
pre-election verification of [election day registrants’] voting
eligibility and the absence of post-election ballot rescission
procedures”).

ii. Speculative injury from ballots counted under the
Presumption of Timeliness.
Plaintiffs’ theory as to the Presumption of Timeliness focuses
on the potential for some voters to vote after Election Day
and still have their votes counted. This argument reveals that
their alleged injury in fact attributable to the Presumption is
“conjectural or hypothetical” instead of “actual or imminent.”
Spokeo, 136 S. Ct. at 1547–48 (quoting Lujan, 504 U.S. at
560, 112 S.Ct. 2130). The Supreme Court has emphasized
that a threatened injury must be “certainly impending” and
not merely “possible” for it to constitute an injury in fact.
Clapper, 568 U.S. at 409, 133 S.Ct. 1138 (emphasis in
original) (quoting Whitmore v. Ark., 495 U.S. 149, 158, 110
S.Ct. 1717, 109 L.Ed.2d 135 (1990)). When determining
Article III standing, our Court accepts allegations based
on well-pleaded facts; but we do not credit bald assertions
that rest on mere supposition. Finkelman v. NFL, 810 F.3d
187, 201–02 (3d Cir. 2016). The Supreme Court has also
emphasized its “reluctance to endorse standing theories that
rest on speculation about the decisions of independent actors.”
Clapper, 568 U.S. at 414, 133 S.Ct. 1138. A standing
theory becomes even more speculative when it requires that
independent actors make decisions to act unlawfully. See City
of L.A. v. Lyons, 461 U.S. 95, 105–06 & 106 n.7, 103 S.Ct.
1660, 75 L.Ed.2d 675 (1983) (rejecting Article III standing
to seek injunction where party invoking federal jurisdiction
would have to establish that he would unlawfully resist arrest
or police officers would violate department orders in future).
Here, the Presumption of Timeliness could inflict injury on
the Voter Plaintiffs only if: (1) another voter violates the
law by casting an absentee ballot after Election Day; (2)
the illegally cast ballot does not bear a legible postmark,
which is against USPS policy;16 (3) that same ballot still
arrives within three days of Election Day, which is faster
than USPS anticipates mail delivery will occur;17 (4) the

ballot lacks sufficient indicia of its untimeliness to overcome
the Presumption of Timeliness; and (5) that same ballot is
ultimately counted. See Donald J. Trump for Pres., Inc. v.
Way, No. 20-cv-10753, 2020 WL 6204477, at *7 (D.N.J.
Oct. 22, 2020) (laying out similar “unlikely chain of events”
required for vote dilution harm from postmark rule under
New Jersey election law); see also Reilly v. Ceridian Corp.,
664 F.3d 38, 43 (3d Cir. 2011) (holding purported injury
in fact was too conjectural where “we cannot now describe
how Appellants will be injured in this case without beginning
our explanation with the word ‘if’ ”). This parade of
horribles “may never come to pass,” Trump for Pres. v.
Boockvar, 2020 WL 5997680, at *33, and we are especially
reluctant to endorse such a speculative theory of injury
given Pennsylvania's “own mechanisms for deterring and
prosecuting voter fraud,” Donald J. Trump for Pres., Inc. v.
Cegavske, No. 20-1445, ––– F.Supp.3d ––––, ––––, 2020 WL
5626974, at *6 (D. Nev. Sept. 18, 2020).18
*17 To date, the Secretary has reported that at least 655
ballots without a legible postmark have been collected within
the Deadline Extension period.19 But it is mere speculation
to say that any one of those ballots was cast after Election
Day. We are reluctant to conclude that an independent actor
—here, one of 655 voters—decided to mail his or her ballot
after Election Day contrary to law. The Voter Plaintiffs have
not provided any empirical evidence on the frequency of voter
fraud or the speed of mail delivery that would establish a
statistical likelihood or even the plausibility that any of the
655 ballots was cast after Election Day. Any injury to the
Voter Plaintiffs attributable to the Presumption of Timeliness
is merely “possible,” not “actual or imminent,” and thus
cannot constitute an injury in fact.
B. Purcell
Even were we to conclude that Plaintiffs have standing, we
could not say that the District Court abused its discretion in
concluding on this record that the Supreme Court's electionlaw jurisprudence counseled against injunctive relief. Unique
and important equitable considerations, including voters’
reliance on the rules in place when they made their plans
to vote and chose how to cast their ballots, support that
disposition. Plaintiffs’ requested relief would have upended
this status quo, which is generally disfavored under the “voter
confusion” and election confidence rationales of Purcell v.
Gonzalez, 549 U.S. 1, 4–5, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006).
One can assume for the sake of argument that aspects of
the now-prevailing regime in Pennsylvania are unlawful as

2:20-cv-01771-PP
12/07/20
Page
16 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1193 Case

15

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

alleged and still recognize that, given the timing of Plaintiffs’
request for injunctive relief, the electoral calendar was such
that following it “one last time” was the better of the choices
available. Perez, 138 S. Ct. at 2324 (“And if a [redistricting]
plan is found to be unlawful very close to the election date, the
only reasonable option may be to use the plan one last time.”).

––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6275871
(Oct. 26, 2020) (denying application to vacate stay). Justice
Kavanaugh explained that the injunction was improper for
the “independent reason[ ]” that “the District Court changed
Wisconsin's election rules too close to the election, in
contravention of this Court's precedents.” Id. at ––––, 2020
WL 6275871 at *3 (Kavanaugh, J., concurring). Purcell and

Here, less than two weeks before Election Day, Plaintiffs
asked the District Court to enjoin a deadline established by
the Pennsylvania Supreme Court on September 17, a deadline
that may have informed voters’ decisions about whether and
when to request mail-in ballots as well as when and how
they cast or intended to cast them. In such circumstances,
the District Court was well within its discretion to give heed
to Supreme Court decisions instructing that “federal courts
should ordinarily not alter the election rules on the eve of
an election.” Republican Nat'l Comm. v. Democratic Nat'l
Comm., ––– U.S. ––––, 140 S. Ct. 1205, 1207, 206 L.Ed.2d
452 (2020) (per curiam) (citing Purcell, 549 U.S. at 1, 127
S.Ct. 5).

a string20 of Supreme Court election-law decisions in 2020
“recognize a basic tenet of election law: When an election is
close at hand, the rules of the road should be clear and settled.”
Id.

In Purcell, an appeal from a federal court order enjoining
the State of Arizona from enforcing its voter identification
law, the Supreme Court acknowledged that “[c]onfidence
in the integrity of our electoral processes is essential to
the functioning of our participatory democracy.” 549 U.S.
at 4, 127 S.Ct. 5. In other words, “[c]ourt orders affecting
elections, especially conflicting orders, can themselves result
in voter confusion and consequent incentive to remain away
from the polls. As an election draws closer, that risk will
increase.” Id. at 4–5, 127 S.Ct. 5. Mindful of “the necessity for
clear guidance to the State of Arizona” and “the imminence
of the election,” the Court vacated the injunction. Id. at 5, 127
S.Ct. 5.
The principle announced in Purcell has very recently been
reiterated. First, in Republican National Committee, the
Supreme Court stayed on the eve of the April 7 Wisconsin
primary a district court order that altered the State's voting
rules by extending certain deadlines applicable to absentee
ballots. 140 S. Ct. at 1206. The Court noted that it was
adhering to Purcell and had “repeatedly emphasized that
lower federal courts should ordinarily not alter the election
rules on the eve of an election.” Id. at 1207 (citing Purcell,
549 U.S. at 1, 127 S.Ct. 5). And just over two weeks
ago, the Court denied an application to vacate a stay of a
district court order that made similar changes to Wisconsin's
election rules six weeks before Election Day. Democratic
Nat'l Comm. v. Wis. State Legislature, No. 20A66, 592 U.S.

*18 The prevailing state election rule in Pennsylvania
permitted voters to mail ballots up through 8:00 P.M. on
Election Day so long as their ballots arrived by 5:00 P.M.
on November 6. Whether that rule was wisely or properly
put in place is not before us now. What matters for our
purposes today is that Plaintiffs’ challenge to it was not filed
until sufficiently close to the election to raise a reasonable
concern in the District Court that more harm than good would
come from an injunction changing the rule. In sum, the
District Court's justifiable reliance on Purcell constitutes an
“alternative and independent reason[ ]” for concluding that
an “injunction was unwarranted” here. Wis. State Legislature,
––– S.Ct. at ––––, 2020 WL 6275871, at *3 (Kavanaugh, J.,
concurring).

IV. Conclusion
We do not decide today whether the Deadline Extension
or the Presumption of Timeliness are proper exercises of
the Commonwealth of Pennsylvania's lawmaking authority,
delegated by the U.S. Constitution, to regulate federal
elections. Nor do we evaluate the policy wisdom of those
two features of the Pennsylvania Supreme Court's ruling.
We hold only that when voters cast their ballots under a
state's facially lawful election rule and in accordance with
instructions from the state's election officials, private citizens
lack Article III standing to enjoin the counting of those ballots
on the grounds that the source of the rule was the wrong
state organ or that doing so dilutes their votes or constitutes
differential treatment of voters in violation of the Equal
Protection Clause. Further, and independent of our holding
on standing, we hold that the District Court did not err in
denying Plaintiffs’ motion for injunctive relief out of concern
for the settled expectations of voters and election officials. We
will affirm the District Court's denial of Plaintiffs’ emergency
motion for a TRO or preliminary injunction.

2:20-cv-01771-PP
12/07/20
Page
17 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1194 Case

16

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

All Citations
--- F.3d ----, 2020 WL 6686120

Footnotes

1
2
3
4
5

6

7

8
9

10

Second Letter from Phocion (April 1784), reprinted in 3 The Papers of Alexander Hamilton, 1782–1786, 530–58 (Harold
C. Syrett ed., 1962).
Throughout this opinion, we refer to absentee voting and mail-in voting interchangeably.
The Free and Equal Elections Clause of the Pennsylvania Constitution provides: “Elections shall be free and equal; and no
power, civil or military, shall at any time interfere to prevent the free exercise of the right of suffrage.” Pa. Const. art. 1, § 5.
Because we have received comprehensive briefing, and given the weighty public interest in a prompt ruling on the matter
before us, we have elected to forgo oral argument.
Bognet seeks to represent Pennsylvania in Congress, but even if he somehow had a relationship to state lawmaking
processes, he would lack personal standing to sue for redress of the alleged “institutional injury (the diminution of
legislative power), which necessarily damage[d] all Members of [the legislature] ... equally.” Raines v. Byrd, 521 U.S. 811,
821, 117 S.Ct. 2312, 138 L.Ed.2d 849 (1997) (plaintiffs were six out of 535 members of Congress); see also Corman, 287
F. Supp. 3d at 568–69 (concluding that “two of 253 members of the Pennsylvania General Assembly” lacked standing to
sue under Elections Clause for alleged “deprivation of ‘their legislative authority to apportion congressional districts’ ”);
accord Va. House of Delegates v. Bethune-Hill, ––– U.S. ––––, 139 S. Ct. 1945, 1953, 204 L.Ed.2d 305 (2019).
Our conclusion departs from the recent decision of an Eighth Circuit panel which, over a dissent, concluded that
candidates for the position of presidential elector had standing under Bond to challenge a Minnesota state-court consent
decree that effectively extended the receipt deadline for mailed ballots. See Carson v. Simon, No. 20-3139, ––– F.3d
––––, ––––, 2020 WL 6335967, at *5 (8th Cir. Oct. 29, 2020). The Carson court appears to have cited language from
Bond without considering the context—specifically, the Tenth Amendment and the reserved police powers—in which the
U.S. Supreme Court employed that language. There is no precedent for expanding Bond beyond this context, and the
Carson court cited none.
The alleged injury specific to Bognet does not implicate the Qualifications Clause or exclusion from Congress, Powell
v. McCormack, 395 U.S. 486, 550, 89 S.Ct. 1944, 23 L.Ed.2d 491 (1969), nor the standing of members of Congress
to bring actions alleging separation-of-powers violations. Moore v. U.S. House of Reps., 733 F.2d 946, 959 (D.C. Cir.
1984) (Scalia, J., concurring).
Only the Voter Plaintiffs bring the Equal Protection count in the Complaint; Bognet did not join that count.
We exclude the Presumption of Timeliness from our concreteness analysis. Plaintiffs allege that the federal statutes
providing for a uniform election day, 3 U.S.C. § 1 and 2 U.S.C. § 7, conflict with, and thus displace, any state law that
would authorize voting after Election Day. They claim that the Presumption permits, theoretically at least, some voters
whose ballots lack a legible postmark to vote after Election Day, in violation of these federal statutes. So unlike the
Deadline Extension, Plaintiffs contend that the General Assembly could not enact the Presumption consistent with the
Constitution. This conceptualization of injury is thus more properly characterized as “concrete” than is the purported
Deadline Extension injury attributable to voters having their timely voted ballots received and counted after Election Day.
That said, we express no opinion about whether the Voter Plaintiffs have, in fact, alleged such a concrete injury for
standing purposes.
See AS § 15.20.081(e) & (h) (Alaska – 10 days after Election Day if postmarked on or before Election Day); West's Ann.
Cal. Elec. Code § 3020(b) (California – three days after Election Day if postmarked on or before Election Day); DC ST §
1-1001.05(a)(10A) (District of Columbia – seven days after the election if postmarked on or before Election Day); 10 ILCS
5/19-8, 5/18A-15 (Illinois – 14 days after the election if postmarked on or before Election Day); K.S.A. 25-1132 (Kansas
– three days after the election if postmarked before the close of polls on Election Day); MD Code, Elec. Law, § 9-505
(Maryland – the second Friday after Election Day if postmarked on or before Election Day); Miss. Code Ann. § 23-15-637
(Mississippi – five business days after Election Day if postmarked on or before Election Day); NV Rev Stat § 293.317
(Nevada – by 5:00 P.M. on the seventh day after Election Day if postmarked by Election Day, and ballots with unclear
postmarks must be received by 5:00 P.M. on the third day after Election Day); N.J.S.A. 19:63-22 (New Jersey – 48
hours after polls close if postmarked on or before Election Day); McKinney's Elec. Law § 8-412 (New York – seven days
after the election for mailed ballots postmarked on Election Day); N.C. Gen. Stat. § 163-231(b)(2) and Wise v. Circosta,

2:20-cv-01771-PP
12/07/20
Page
18 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1195 Case

17

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

11

12

13

14
15
16
17
18

19

20

978 F.3d 93, 96 (4th Cir. 2020) (North Carolina – recognizing extension from three to nine days after the election the
deadline for mail ballots postmarked on or before Election Day); Texas Elec. Code § 86.007 (the day after the election
by 5:00 P.M. if postmarked on or before Election Day); Va. Code 24.2-709 (Virginia – by noon on the third day after
the election if postmarked on or before Election Day); West's RCWA 29A.40.091 (Washington – no receipt deadline for
ballots postmarked on or before Election Day); W. Va. Code, §§ 3-3-5, 3-5-17 (West Virginia – five days after the election
if postmarked on or before Election Day); see also Iowa Code § 53.17(2) (by noon the Monday following the election if
postmarked by the day before Election Day); NDCC 16.1-07-09 (North Dakota – before the canvass if postmarked the
day before Election Day); R.C. § 3509.05 (Ohio – 10 days after the election if postmarked by the day before Election
Day); Utah Code Ann. § 20A-3a-204 (seven to 14 days after the election if postmarked the day before the election).
Bush v. Gore does not require us to perform an Equal Protection Clause analysis of Pennsylvania election law as
interpreted by the Pennsylvania Supreme Court. See 531 U.S. at 109, 121 S.Ct. 525 (“Our consideration is limited to the
present circumstances ....”); id. at 139–40, 121 S.Ct. 525 (Ginsburg, J., dissenting) (discussing “[r]are[ ]” occasions when
Supreme Court rejected state supreme court's interpretation of state law, one of which was in 1813 and others occurred
during Civil Rights Movement—and none decided federal equal protection issues).
In their complaint, the Voter Plaintiffs alleged that they are all “residents of Somerset County, a county where voters are
requesting absentee ballots at a rate far less than the state average” and thus, somehow, the Voter Plaintiffs’ votes “will
be diluted to a greater degree than other voters.” Compl. ¶ 71 (emphasis in original). Plaintiffs continue to advance this
argument on appeal in support of standing, and it additionally suffers from being a conjectural or hypothetical injury under
the framework discussed infra Section III.A.2.b.ii. It is purely hypothetical that counties where a greater percentage of
voters request absentee ballots will more frequently have those ballots received after Election Day.
Plaintiffs also rely on FEC v. Akins, 524 U.S. 11, 118 S.Ct. 1777, 141 L.Ed.2d 10 (1998), for the proposition that a
widespread injury—such as a mass tort injury or an injury “where large numbers of voters suffer interference with voting
rights conferred by law”—does not become a “generalized grievance” just because many share it. Id. at 24–25, 118 S.Ct.
1777. That's true as far as it goes. But the Voter Plaintiffs have not alleged an injury like that at issue in Akins. There,
the plaintiffs’ claimed injury was their inability to obtain information they alleged was required to be disclosed under the
Federal Election Campaign Act. Id. at 21, 118 S.Ct. 1777. The plaintiffs alleged a statutory right to obtain information
and that the same information was being withheld. Here, the Voter Plaintiffs’ alleged injury is to their right under the
Equal Protection Clause not to have their votes “diluted,” but the Voter Plaintiffs have not alleged that their votes are
less influential than any other vote.
The District Court did not find that the Deadline Extension created such a preferred class.
Moreover, we cannot overlook that the mail-in voters potentially suffer a disadvantage relative to the in-person voters.
Whereas in-person ballots that are timely cast will count, timely cast mail-in ballots may not count because, given mail
delivery rates, they may not be received by 5:00 P.M. on November 6.
See Defendant-Appellee's Br. 30 (citing 39 C.F.R. § 211.2(a)(2); Postal Operations Manual at 443.3).
See Pa. Democratic Party, 238 A.3d at 364 (noting “current two to five day delivery expectation of the USPS”).
Indeed, the conduct required of a voter to effectuate such a scheme may be punishable as a crime under Pennsylvania
statutes that criminalize forging or “falsely mak[ing] the official endorsement on any ballot,” 25 Pa. Stat. & Cons. Stat. §
3517 (punishable by up to two years’ imprisonment); “willfully disobey[ing] any lawful instruction or order of any county
board of elections,” id. § 3501 (punishable by up to one year's imprisonment); or voting twice in one election, id. § 3535
(punishable by up to seven years’ imprisonment).
As of the morning of November 12, Secretary Boockvar estimates that 655 of the 9383 ballots received between 8:00
P.M. on Election Day and 5:00 P.M. on November 6 lack a legible postmark. See Dkt. No. 59. That estimate of 655 ballots
does not include totals from five of Pennsylvania's 67 counties: Lehigh, Northumberland, Tioga, Warren, and Wayne. Id.
The 9383 ballots received, however, account for all of Pennsylvania's counties. Id.
See, e.g., Andino v. Middleton, No. 20A55, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020 WL 5887393,
at *1 (Oct. 5, 2020) (Kavanaugh, J., concurring) (“By enjoining South Carolina's witness requirement shortly before the
election, the District Court defied [the Purcell] principle and this Court's precedents.” (citations omitted)); Merrill v. People
First of Ala., No. 19A1063, 591 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020 WL 3604049 (Mem.), at *1
(July 2, 2020); Republican Nat'l Comm., 140 S. Ct. at 1207; see also Democratic Nat'l Comm. v. Bostelmann, 977 F.3d
639, 641 (7th Cir. 2020) (per curiam) (holding that injunction issued six weeks before election violated Purcell); New Ga.
Project v. Raffensperger, 976 F.3d 1278, 1283 (11th Cir. Oct. 2, 2020) (“[W]e are not on the eve of the election—we
are in the middle of it, with absentee ballots already printed and mailed. An injunction here would thus violate Purcell’s

2:20-cv-01771-PP
12/07/20
Page
19 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1196 Case

18

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120
well-known caution against federal courts mandating new election rules—especially at the last minute.” (citing Purcell,
549 U.S. at 4–5, 127 S.Ct. 5)).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/07/20
Page
20 of 20
Document 55-9
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1197 Case

19

EXHIBIT 10

1198 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 55-10

OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

October 29, 2020

To:
Kyle J. Sargent
Deputy Corporation Counsel
320 S. Walnut St.
Appleton, WI 54911
Kimberly A. Tenerelli
Corporation Counsel
Calumet County
206 Court St.
Chilton, WI 53014

Thomas C. Bellavia
S. Michael Murphy
Colin T. Roth
Assistant Attorneys General
P.O. Box 7857
Madison, WI 53707
Christopher Behrens
Amanda Kate Abshire
City of Appleton Attorney's Office
100 North Appleton Street
Appleton, WI 54911
*Address list continued on page 5.

You are hereby notified that the Court has entered the following order:
No. 2020AP1761-OA

O'Bright v. Lynch

The court has considered the following filings: (1) an “Emergency Petition For Original
Jurisdiction And Declaratory Judgment” filed by Outagamie County and Calumet County; (2)
responses to the petition filed by the City of Appleton; the Village of Black Creek; the Town of
Buchanan, et al.; the Town of Cicero; the Town of Center, et al.; the Village of Hortonville, et al.;
the City of Kaukauna; the Town of Vandenbroek; and the Wisconsin Elections Commission; and
(3) a statement in support of the petition filed by amicus curiae, Wisconsin Counties Association;
IT IS ORDERED that the petition is denied.
¶1
PATIENCE DRAKE ROGGENSACK, C.J. (concurring). Wisconsinites have a
fundamental right to vote. Therefore, a vote legally cast and received by the time the polls close
on Election Day must be counted if the ballot expresses the will of the voter.

1199 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 7 Document 55-10

Page 2
October 29, 2020
No. 2020AP1761-OA

O'Bright v. Lynch

¶2
In the present case, clerks for Outagamie County and Calumet County are
concerned that they cannot count and report such votes by a statutorily-imposed deadline. They
ask us to assume original jurisdiction and issue what amounts to an advisory opinion explaining
what election laws they are free to disregard. We will not do that. However, I write separately to
clarify that our denial of the petition for an original action should not be construed as an
endorsement to disregard Wisconsinites' fundamental right to vote. Accordingly, I respectfully
concur.
I.

BACKGROUND

¶3
For context, the petitioners for declaratory judgment are the clerks of Outagamie
County and Calumet County. For the upcoming November 3rd election, the Outagamie County
clerk ordered ballots on behalf of all municipalities in Outagamie County and the portions of the
City of Appleton and the Town of Harrison that fall in Calumet and Winnebago Counties. On
September 3, the Outagamie County clerk approved proofs of ballots provided by JP Graphics,
Inc. From September 8 to September 16, JP delivered more than 133,000 printed ballots for
absentee voting to the municipalities. Subsequently, the municipalities mailed some of those
absentee ballots to registered voters who had requested them.
¶4
Unfortunately, a portion of the absentee ballots had a printing error, which has been
described to us as a blemish in the timing mark that prevents the affected ballots from being
counted by electronic voting systems. Approximately 13,500 absentee ballots with this error were
available to be mailed to voters.
¶5
Outagamie County and Calumet County became concerned that those absentee
ballots were "defective" such that municipalities had to follow the procedures outlined in
Wis. Stat. § 5.85(3) (2017-18),1 which require that defective ballots that cannot be counted by an
electronic voting system be duplicated in the presence of witnesses. If such a procedure were
required, Outagamie County and Calumet County worried that their municipalities could not
comply with statutorily-imposed deadlines set forth in Wis. Stat. § 7.51(5)(b) by 4 p.m. on the day
following the election.
¶6
Outagamie County asked the Wisconsin Elections Commission (WEC) for advice
about how to proceed. The WEC responded that it lacked the authority to extend deadlines
imposed by Wis. Stat. § 7.51(5)(b). Furthermore, it could not authorize the municipalities to
utilize a procedure other than Wis. Stat. § 5.85(3). The WEC also explained that, while it could
authorize a hand count pursuant to Wis. Stat. § 5.40(5m), it did not believe that it could authorize
hand counting of only affected ballots. As it stated, "[p]ermission to hand count is not a 'mix or
match' situation where some ballots in a municipality may be counted by electronic voting
equipment, and other ballots counted by hand. Either all ballots in a municipality must be counted
by electronic voting equipment, or, if permission is granted, all ballots [in] that municipality must
be counted by hand." According to Outagamie County and Calumet County, they cannot comply
1

All subsequent references to the Wisconsin Statutes are to the 2017-18 version.
2

1200 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 7 Document 55-10

Page 3
October 29, 2020
No. 2020AP1761-OA

O'Bright v. Lynch

with Wis. Stat. § 5.85(3) by 4 p.m. November 4. Outagamie County and Calumet County did not
discuss hand-counting some or all of the ballots in their petition or memorandum relating to an
original action.
II. DISCUSSION
A. The Right to Vote
¶7
The right to vote is protected by Wis. Const. art. III, § 1. Therefore, a vote legally
cast and received by the time the polls close on Election Day must be counted if the ballot expresses
the will of the voter.2 In Ollmann v. Kowalewski, 238 Wis. 574, 578, 300 N.W. 183 (1941), we
explained the extent of the protection afforded by § 1. There, we noted that "the voters'
constitutional right to vote 'cannot be baffled by latent official failure or defect.'" Id. at 579
(quoting State ex rel. Wood v. Baker, 38 Wis. 71 (1875)).
¶8
Ollmann is not a standalone case. As the court of appeals explained in Board of
Canvassers of the City of Bayfield v. Erickson: "Wisconsin has a long tradition of protecting the
individual citizen's right to have his vote counted, consistent with necessary restrictions to insure
the integrity of the election process." 147 Wis. 2d 467, 471, 433 N.W.2d 266 (Ct. App. 1988).
B. Application
¶9
Here, election officials desire to ignore deadlines imposed by
Wis. Stat. § 7.51(5)(b), or, alternatively, to use a procedure other than the one prescribed by
Wis. Stat. § 5.85(3). Effectively, they ask us to render legal advice about how to proceed. We
will not do that. However, a vote legally cast and received by the time the polls close on Election
Day must be counted if the ballot expresses the will of the voter.
¶10
Election officials may have to make difficult decisions regarding how to proceed
as they comply with what the law requires. Obtaining more election workers appears to be
necessary.
III. CONCLUSION
¶11
In conclusion, I write separately to clarify that our denial of the petition for an
original action should not be construed as an endorsement to disregard Wisconsinites' fundamental
right to vote. We have repeatedly recognized that Wisconsinites have a fundamental right to vote,
and a vote legally cast and received by the time the polls close on Election Day must be counted
if the ballot expresses the will of the voter. Accordingly, I respectfully concur to the order.
2

Similar protection is afforded by the United States Constitution. Reynolds v. Sims, 377
U.S. 533, 554 (1964) ("It has been repeatedly recognized that all qualified voters have a
constitutionally protected right to vote and to have their votes counted." (Internal citations
omitted)).
3

1201 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 7 Document 55-10

Page 4
October 29, 2020
No. 2020AP1761-OA

O'Bright v. Lynch

¶12
ANN WALSH BRADLEY, J. (dissenting). In recent months, this court has been
inundated with petitions for original actions. And the court has accepted the lion's share.3 Yet in
this case, arguably one of the most consequential of the lot and a case where time is of the essence,
the court denies the petition without explanation.
¶13
The petitioners, the Clerks of Outagamie and Calumet Counties, together with all
of the respondents4 as well as the Wisconsin Counties Association, ask this court to grant the
petition for original action. The parties may differ in approach, but they are unanimous in their
desire that some relief be granted.
¶14
The issues presented are significant and meet the criteria established for the court
to exercise its original jurisdiction as set forth in Wis. Stat. § (Rule) 809.70. If the court exercises
original jurisdiction and declares the parties' rights and obligations as requested in the petition, it
would provide the necessary clarity and certainty as to the election process and avoid disputes that
may arise after Election Day.
¶15
I conclude that our input is needed to provide critical guidance to local election
officials in advance of processing ballots for a national, state, and local election that is already
underway. Accordingly, I would grant the petition for original action.
¶16
The majority, however, concludes otherwise. In explaining its rationale for the
denial, the concurrence seemingly rests its analysis on the premise that if the court grants the
petition it would be rendering a prohibited advisory opinion. See Chief Justice Roggensack's
concurrence, ¶9 ("Effectively, they ask us to render legal advice about how to proceed. We will
not do that."). That premise appears to be merely an excuse.
¶17
The petition here requests a declaratory judgment from this court. The very essence
of a declaratory judgment is to declare the rights and obligations of the parties so that they know
3

See, e.g., Fabick v. Evers, No. 2020AP1718-OA; James v. Heinrich, No. 2020AP1419OA; Wis. Council of Independent and Religious Schools v. Heinrich, No. 2020AP1420-OA; St.
Ambrose Academy, Inc. v. Heinrich, No. 2020AP1446-OA; Hawkins v. Wis. Elections Comm'n,
2020 WI 75, 393 Wis. 2d 629, 948 N.W.2d 877; Jefferson v. Dane Cty., No. 2020AP557-OA; Wis.
Legislature v. Palm, 2020 WI 42, 391 Wis. 2d 497, 942 N.W.2d 900; Wis. Legislature v. Evers,
No. 2020AP608-OA, unpublished order (Apr. 6, 2020).
4

The respondents in this action are the Wisconsin Elections Commission and the clerks for
the City of Appleton, City of Kaukauna, Town of Bovina, Town of Buchanan, Town of Center,
Town of Cicero, Town of Ellington, Town of Freedom, Town of Grand Chute, Town of Hortonia,
Town of Kaukauna, Town of Maine, Town of Maple Creek, Town of Oneida, Town of Osborn,
Town of Seymour, Town of Vandenbroek, Village of Black Creek, Village of Combined Locks,
Village of Hortonville, Village of Kimberly, Village of Nichols, Village of Shiocton, and Village
of Harrison.

1202 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 7 Document 55-10

Page 5
October 29, 2020
No. 2020AP1761-OA

O'Bright v. Lynch

how to proceed consistent with the law. Wis. Stat. § 806.04. It is a well-recognized and often
used procedure in courts throughout this state.
¶18
Having eschewed the very idea of being called upon to render an advisory opinion,
the concurrence seemingly engages in what it says it will not do. It observes that the clerks "did
not discuss hand-counting some or all of the ballots in their petition or memorandum relating to
an original action." Chief Justice Roggensack's concurrence, ¶6. It appears that the concurrence
makes this observation to suggest a possible avenue of recourse. Such a suggestion, however, may
be inconsistent with both reality and the law.
¶19
Given the resources available to municipalities, it appears inconsistent with the onthe-ground reality of some of the clerks' abilities to report their results within the statutory deadline
of 4:00 p.m. the following day. See Wis. Stat. § 7.51(5)(b). Additionally, it may be inconsistent
with the law in that it suggests hand-counting all ballots without advance permission from the
Elections Commission or some ballots in violation of Elections Commission guidance. Wis. Stat.
§ 5.40(5m).
¶20
In sum, the majority leaves local election officials in the lurch. Without the
requested and critical guidance from this court, they are left to do their best under difficult
circumstances. For the foregoing reasons, I respectfully dissent.
¶21
I am authorized to state that Justice REBECCA FRANK DALLET and Justice JILL
J. KAROFSKY join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Kevin Davidson
Kaukauna City Attorney
144 W 2nd St
Kaukauna, WI 54130
Ashley C. Lehocky
Adam V. Marshall
Richard J. Carlson
Town Counsel Law & Litigation, LLC
119 N. McCarthy Rd, Suite C
Appleton, WI 54913

Steven J. Frassetto
MENN Law Firm
2501 E. Enterprise Ave.
P.O. Box 785
Appleton, WI 54912
Robert E. Sorenson
MENN Law Firm
223 North Pine Street
Hortonville, WI 54944

1203 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 7 Document 55-10

Page 6
October 29, 2020
No. 2020AP1761-OA

O'Bright v. Lynch

Matthew Parmentier
Dempsey, Edgarton, St Peter, Petak &
Rosenfeldt
P.O. Box 1276
Fond du Lac, WI 54936
Charles D. Koehler
Andrew J. Rossmeissl
Tyler J. Claringbole
Herrling Clark Law Firm LTD
800 North Lynndale Dr
Appleton, WI 54914
Debra K. Vander Heiden
Clerk for Town of Kaukauna
W780 Greiner Rd
Kaukauna, WI 54130-8028

Anthony J. Steffek
Davis & Kuelthau, SC
318 S. Washington St., Ste. 300
Green Bay, WI 54301
Robert D. Sweeney
Sweeney Law Office, S.C.
P.O. Box 206
Seymour, WI 54165
Andrew T. Phillips
von Briesen & Roper, S.C.
411 E. Wisconsin Ave., Ste. 1000
Milwaukee, WI 53202

1204 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 7 Document 55-10

EXHIBIT 11

1205 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 11 Document 55-11

OFFICE OF THE CLERK

110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 3, 2020

To:
R. George Burnett
Conway, Olejniczak & Jerry, SC
P.O. Box 23200
Green Bay, WI 54305-3200
James R. Troupis
Troupis Law Office, LLC
4126 Timber Lane
Cross Plains, WI 53528
Margaret C. Daun
Milwaukee County Corporation Counsel
901 N. 9th Street, Room 303
Milwaukee, WI 53233

Joshua L. Kaul
Thomas C. Bellavia
Colin T. Roth
Colin R. Stroud
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
David R. Gault
Assistant Corporation Counsel
Office of the Dane County Corporation
Counsel
210 Martin Luther King, Jr. Blvd., Room 419
Madison, WI 53703-3345
*Address list continued on page 9.

You are hereby notified that the Court has entered the following order:
No. 2020AP1971-OA

Trump v. Evers

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70, a
supporting legal memorandum, and an appendix have been filed on behalf of petitioners, Donald
J. Trump, et al. Responses to the petition have been filed by (1) Governor Tony Evers; (2) the
Wisconsin Elections Commission and its Chair, Ann S. Jacobs; (3) Scott McDonell, Dane County
Clerk, and Alan A. Arnsten and Joyce Waldrop, members of the Dane County Board of
Canvassers; and (4) George L. Christensen, Milwaukee County Clerk, and Timothy H. Posnanski,
Richard Baas, and Dawn Martin, members of the Milwaukee County Board of Canvassers. A nonparty brief in support of the petition has been filed by the Liberty Justice Center. A motion to
intervene, a proposed response of proposed respondents-intervenors, and an appendix have been
filed by the Democratic National Committee (DNC) and Margaret J. Andrietsch, Sheila Stubbs,

1206 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 11 Document 55-11

Page 2
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

Ronald Martin, Mandela Barnes, Khary Penebaker, Mary Arnold, Patty Schachtner, Shannon
Holsey, and Benjamin Wikler (collectively, “the Biden electors”). The court having considered
all of the filings,
IT IS ORDERED that the petition for leave to commence an original action is denied. One
or more appeals from the determination(s) of one or more boards of canvassers or from the
determination of the chairperson of the Wisconsin Elections Commission may be filed by an
aggrieved candidate in circuit court. Wis. Stat. § 9.01(6); and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.
BRIAN HAGEDORN, J. (concurring). I understand the impulse to immediately address
the legal questions presented by this petition to ensure the recently completed election was
conducted in accordance with the law. But challenges to election results are also governed by law.
All parties seem to agree that Wis. Stat. § 9.01 (2017–18)1 constitutes the “exclusive judicial
remedy” applicable to this claim. § 9.01(11). After all, that is what the statute says. This section
provides that these actions should be filed in the circuit court, and spells out detailed procedures
for ensuring their orderly and swift disposition. See § 9.01(6)–(8). Following this law is not
disregarding our duty, as some of my colleagues suggest. It is following the law.
Even if this court has constitutional authority to hear the case straightaway,
notwithstanding the statutory text, the briefing reveals important factual disputes that are best
managed by a circuit court.2 The parties clearly disagree on some basic factual issues, supported
at times by competing affidavits. I do not know how we could address all the legal issues raised
in the petition without sorting through these matters, a task we are neither well-positioned nor
institutionally designed to do. The statutory process assigns this responsibility to the circuit court.
Wis. Stat. § 9.01(8)(b) (“The [circuit] court shall separately treat disputed issues of procedure,
interpretations of law, and findings of fact.”).
We do well as a judicial body to abide by time-tested judicial norms, even—and maybe
especially—in high-profile cases. Following the law governing challenges to election results is no
threat to the rule of law. I join the court’s denial of the petition for original action so that the
petitioners may promptly exercise their right to pursue these claims in the manner prescribed by
the legislature.

1

All subsequent references to the Wisconsin Statutes are to the 2017–18 version.

2

The legislature generally can and does set deadlines and define procedures that
circumscribe a court’s competence to act in a given case. Village of Trempealeau v. Mikrut, 2004
WI 79, ¶9–10, 273 Wis. 2d 76, 681 N.W.2d 190. The constitution would obviously override these
legislative choices where the two conflict.

1207 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 11 Document 55-11

Page 3
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

PATIENCE DRAKE ROGGENSACK, C.J. (dissenting). Before us is an emergency
petition for leave to commence an original action brought by President Trump, Vice President
Pence and Donald Trump for President, Inc., against Governor Evers, the Wisconsin Elections
Commission (WEC), its members and members of both the Milwaukee County Board of
Canvassers and the Dane County Board of Canvassers. The Petitioners allege that the WEC and
election officials caused voters to violate various statutes in conducting Wisconsin's recent
presidential election. The Petitioners raised their concerns during recount proceedings in Dane
County and Milwaukee County. Their objections were overruled in both counties.
The Respondents argue, in part, that we lack subject matter jurisdiction because of the
"exclusive judicial remedy" provision found in Wis. Stat. § 9.01(11) (2017-18).3 Alternatively,
the Respondents assert that we should deny this petition because fact-finding is required, and we
are not a fact-finding tribunal.
I conclude that we have subject matter jurisdiction that enables us to grant the petition for
original action pending before us. Our jurisdiction arises from the Wisconsin Constitution and
cannot be impeded by statute. Wis. Const., art. VII, Section 3(2); City of Eau Claire v. Booth,
2016 WI 65, ¶7, 370 Wis. 2d 595, 882 N.W.2d 738. Furthermore, time is of the essence.
However, fact-finding may be central to our evaluation of some of the questions presented.
I agree that the circuit court should examine the record presented during the canvasses to make
factual findings where legal challenges to the vote turn on questions of fact. However, I dissent
because I would grant the petition for original action, refer for necessary factual findings to the
circuit court, who would then report its factual findings to us, and we would decide the important
legal questions presented.
I also write separately to emphasize that by denying this petition, and requiring both the
factual questions and legal questions be resolved first by a circuit court, four justices of this court
are ignoring that there are significant time constraints that may preclude our deciding significant
legal issues that cry out for resolution by the Wisconsin Supreme Court.
I. DISCUSSION
The Petitioners set out four categories of absentee votes that they allege should not have
been counted because they were not lawfully cast: (1) votes cast during the 14-day period for inperson absentee voting at a clerk's office with what are alleged to be insufficient written requests
for absentee ballots, pursuant to Wis. Stat. § 6.86(1)(b); (2) votes cast when a clerk has completed
information missing from the ballot envelope, contrary to Wis. Stat. § 6.87(6d); (3) votes cast by
those who obtained an absentee ballot after March 25, 2020 by alleging that they were indefinitely

3

All subsequent references to the Wisconsin Statutes are to the 2017–18 version.

1208 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 11 Document 55-11

Page 4
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

confined; and (4) votes cast in Madison at "Democracy in the Park" events on September 26 and
October 3, in advance of the 14-day period before the election, contrary to Wis. Stat. § 6.87.
Some of the Respondents have asserted that WEC has been advising clerks to add missing
information to ballot envelopes for years, so the voters should not be punished for following
WEC's advice. They make similar claims for the collection of votes more than 14 days before the
November 3 election.
If WEC has been giving advice contrary to statute, those acts do not make the advice lawful.
WEC must follow the law. We, as the law declaring court, owe it to the public to declare whether
WEC's advice is incorrect. However, doing so does not necessarily lead to striking absentee ballots
that were cast by following incorrect WEC advice. The remedy Petitioners seek may be out of
reach for a number of reasons.
Procedures by which Wisconsin elections are conducted must be fair to all voters. This is
an important election, but it is not the last election in which WEC will be giving advice. If we do
not shoulder our responsibilities, we leave future elections to flounder and potentially result in the
public's perception that Wisconsin elections are unfair. The Wisconsin Supreme Court can uphold
elections by examining the procedures for which complaint was made here and explaining to all
where the WEC was correct and where it was not.
I also am concerned that the public will misunderstand what our denial of the petition
means. Occasionally, members of the public seem to believe that a denial of our acceptance of a
case signals that the petition's allegations are either false or not serious. Nothing could be further
from the truth. Indeed, sometimes, we deny petitions even when it appears that a law has been
violated. Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶¶14–16, 393 Wis. 2d 629, 948 N.W.2d
877 (Roggensack, C.J., dissenting).
II. CONCLUSION
I conclude that we have subject matter jurisdiction that enables us to grant the petition for
original action pending before us. Our jurisdiction arises from the Wisconsin Constitution and
cannot be impeded by statute. Wis. Const., art. VII, Section 3(2); City of Eau Claire, 370 Wis. 2d
595, ¶7. Furthermore, time is of the essence.
However, fact-finding may be central to our evaluation of some of the questions presented.
I agree that the circuit court should examine the record presented during the canvasses to make
factual findings where legal challenges to the vote turn on questions of fact. However, I dissent
because I would grant the petition for original action, refer for necessary factual findings to the
circuit court, who would then report its factual findings to us, and we would decide the important
legal questions presented.
I am authorized to state that Justice ANNETTE KINGSLAND ZIEGLER joins this dissent.

1209 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 11 Document 55-11

Page 5
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

REBECCA GRASSL BRADLEY, J. (dissenting). "It is emphatically the province and
duty of the Judicial Department to say what the law is." Marbury v. Madison, 5 U.S. 137, 177
(1803). The Wisconsin Supreme Court forsakes its duty to the people of Wisconsin in declining
to decide whether election officials complied with Wisconsin's election laws in administering the
November 3, 2020 election. Instead, a majority of this court passively permits the Wisconsin
Elections Commission (WEC) to decree its own election rules, thereby overriding the will of the
people as expressed in the election laws enacted by the people's elected representatives. Allowing
six unelected commissioners to make the law governing elections, without the consent of the
governed, deals a death blow to democracy. I dissent.
The President of the United States challenges the legality of the manner in which certain
Wisconsin election officials directed the casting of absentee ballots, asserting they adopted and
implemented particular procedures in violation of Wisconsin law. The respondents implore this
court to reject the challenge because, they argue, declaring the law at this point would
"retroactively change the rules" after the election. It is THE LAW that constitutes "the rules" of
the election and election officials are bound to follow the law, if we are to be governed by the rule
of law, and not of men.
Under the Wisconsin Constitution, "all governmental power derives 'from the consent of
the governed' and government officials may act only within the confines of the authority the people
give them. Wis. Const. art. I, § 1." Wisconsin Legislature v. Palm, 2020 WI 42, ¶66, 391 Wis. 2d
497, 942 N.W.2d 900 (Rebecca Grassl Bradley, J., concurring). The Founders designed our
"republic to be a government of laws, and not of men . . . bound by fixed laws, which the people
have a voice in making, and a right to defend." John Adams, Novanglus: A History of the Dispute
with America, from Its Origin, in 1754, to the Present Time, in Revolutionary Writings of John
Adams (C. Bradley Thompson ed. 2000) (emphasis in original). Allowing any person, or
unelected commission of six, to be "bound by no law or limitation but his own will" defies the will
of the people. Id.
The importance of having the State's highest court resolve the significant legal issues
presented by the petitioners warrants the exercise of this court's constitutional authority to hear
this case as an original action.
See Wis. Const. Art. VII, § 3.
"The purity
and integrity of elections is a matter of such prime importance, and affects so many important
interests, that the courts ought never to hesitate, when the opportunity is offered, to test them by
the strictest legal standards." State v. Conness, 106 Wis. 425, 82 N.W. 288, 289 (1900). While
the court reserves this exercise of its jurisdiction for those original actions of statewide
significance, it is beyond dispute that "[e]lections are the foundation of American government and
their integrity is of such monumental importance that any threat to their validity should trigger not
only our concern but our prompt action." State ex rel. Zignego v. Wis. Elec. Comm'n, 2020AP123W (S. Ct. Order issued June 1, 2020 (Rebecca Grassl Bradley, J., dissenting)).
The majority notes that an action "may be filed by an aggrieved candidate in circuit court.
Wis. Stat. § 9.01(6)." Justice Hagedorn goes so far as to suggest that § 9.01 "constitutes the
'exclusive judicial remedy' applicable to this claim." No statute, however, can circumscribe the

1210 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 11 Document 55-11

Page 6
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

constitutional jurisdiction of the Wisconsin Supreme Court to hear this (or any) case as an original
action. "The Wisconsin Constitution IS the law—and it reigns supreme over any statute."
Wisconsin Legislature v. Palm, 391 Wis. 2d 497, ¶67 n.3 (Rebecca Grassl Bradley, J., concurring).
"The Constitution's supremacy over legislation bears repeating: 'the Constitution is to be
considered in court as a paramount law' and 'a law repugnant to the Constitution is void, and . . .
courts, as well as other departments, are bound by that instrument.' See Marbury [v. Madison], 5
U.S. (1 Cranch) [137] at 178, 180 [1803])." Mayo v. Wis. Injured Patients and Families Comp.
Fund, 2018 WI 78, ¶91, 383 Wis. 2d 1, 914 N.W.2d 678 (Rebecca Grassl Bradley, J., concurring).
Wisconsin Statute § 9.01 is compatible with the constitution. While it provides an avenue for
aggrieved candidates to pursue an appeal to a circuit court after completion of the recount
determination, it does not foreclose the candidate's option to ask this court to grant his petition for
an original action. Any contrary reading would render the law in conflict with the constitution and
therefore void. Under the constitutional-doubt canon of statutory interpretation, "[a] statute should
be interpreted in a way that avoids placing its constitutionality in doubt." Antonin Scalia & Brian
A. Garner, Reading Law: The Interpretation of Legal Texts 247. See also Wisconsin Legislature
v. Palm, 391 Wis. 2d 497, ¶31 ("[W]e disfavor statutory interpretations that unnecessarily raise
serious constitutional questions about the statute under consideration.").
While some will either celebrate or decry the court's inaction based upon the impact on
their preferred candidate, the importance of this case transcends the results of this particular
election. "Confidence in the integrity of our electoral processes is essential to the functioning of
our participatory democracy." Purcell v. Gonzalez, 549 U.S. 1, 4 (2006). The majority takes a
pass on resolving the important questions presented by the petitioners in this case, thereby
undermining the public's confidence in the integrity of Wisconsin's electoral processes not only
during this election, but in every future election. Alarmingly, the court's inaction also signals to
the WEC that it may continue to administer elections in whatever manner it chooses, knowing that
the court has repeatedly declined to scrutinize its conduct. Regardless of whether the WEC's
actions affect election outcomes, the integrity of every election will be tarnished by the public's
mistrust until the Wisconsin Supreme Court accepts its responsibility to declare what the election
laws say. "Only . . . the supreme court can provide the necessary clarity to guide all election
officials in this state on how to conform their procedures to the law" going forward. State ex rel.
Zignego v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca
Grassl Bradley, J., dissenting)).
The majority's recent pattern of deferring or altogether dodging decisions on election law
controversies4 cannot be reconciled with its lengthy history of promptly hearing cases involving
4

Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶¶84, 86, 393 Wis. 2d 629, 948 N.W.2d 877
(Rebecca Grassl Bradley, J., dissenting) ("The majority upholds the Wisconsin Elections
Commission's violation of Wisconsin law, which irrefutably entitles Howie Hawkins and Angela
Walker to appear on Wisconsin's November 2020 general election ballot as candidates for
President and Vice President of the United States . . . . In dodging its responsibility to uphold
the rule of law, the majority ratifies a grave threat to our republic, suppresses the votes of

1211 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 11 Document 55-11

Page 7
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

voting rights and election processes under the court's original jurisdiction or by bypassing the court
of appeals.5 While the United States Supreme Court has recognized that "a state indisputably has
a compelling interest in preserving the integrity of its election process[,]" Burson v. Freeman, 504
U.S. 191, 199 (1992), the majority of this court repeatedly demonstrates a lack of any interest in
doing so, offering purely discretionary excuses or no reasoning at all. This year, the majority in
Hawkins v. Wis. Elec. Comm'n declined to hear a claim that the WEC unlawfully kept the Green
Party's candidates for President and Vice President off of the ballot, ostensibly because the
majority felt the candidates' claims were brought "too late."6 But when litigants have filed cases
involving voting rights well in advance of Wisconsin elections, the court has "take[n] a pass,"

Wisconsin citizens, irreparably impairs the integrity of Wisconsin's elections, and undermines the
confidence of American citizens in the outcome of a presidential election"); State ex rel. Zignego
v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca Grassl
Bradley, J., dissenting)) ("In declining to hear a case presenting issues of first impression
immediately impacting the voting rights of Wisconsin citizens and the integrity of impending
elections, the court shirks its institutional responsibilities to the people who elected us to make
important decisions, thereby signaling the issues are not worthy of our prompt attention."); State
ex rel. Zignego v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued June 1, 2020 (Rebecca
Grassl Bradley, J., dissenting)) ("A majority of this court disregards its duty to the people we serve
by inexplicably delaying the final resolution of a critically important and time-sensitive case
involving voting rights and the integrity of Wisconsin's elections.").
5

See, e.g., NAACP v. Walker, 2014 WI 98, ¶¶1, 18, 357 Wis. 2d 469, 851
N.W.2d 262 (2014) (this court took jurisdiction of appeal on its own motion in order to decide
constitutionality of the voter identification act enjoined by lower court); Elections Bd. of
Wisconsin v. Wisconsin Mfrs. & Commerce, 227 Wis. 2d 650, 653, 670, 597 N.W.2d 721 (1999)
(this court granted bypass petition to decide whether express advocacy advertisements advocating
the defeat or reelection of incumbent legislators violated campaign finance laws, in absence of
cases interpreting applicable statutes); State ex rel. La Follette v. Democratic Party of United
States, 93 Wis. 2d 473, 480-81, 287 N.W.2d 519 (1980) (original action deciding whether
Wisconsin open primary system was binding on national political parties or infringed their freedom
of association), rev'd, Democratic Party of United States v. Wisconsin ex rel. La Follette, 450 U.S.
107 (1981); State ex rel. Reynolds v. Zimmerman, 22 Wis. 2d 544, 548, 126 N.W.2d 551 (1964)
(original action seeking to enjoin state from holding elections pursuant to legislative
apportionment alleged to violate constitutional rights); State ex rel. Broughton v. Zimmerman, 261
Wis. 398, 400, 52 N.W.2d 903 (1952) (original action to restrain the state from holding elections
based on districts as defined prior to enactment of reapportionment law), overruled in part by
Reynolds, 22 Wis. 2d 544; State ex rel. Conlin v. Zimmerman, 245 Wis. 475, 476, 15 N.W.2d 32
(1944) (original action to interpret statutes in determining whether candidate for Governor timely
filed papers to appear on primary election ballot).
6

Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶5, 393 Wis. 2d 629, 948 N.W.2d 877
(denying the petition for leave to commence an original action).

1212 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 11 Document 55-11

Page 8
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

thereby "irreparably den[ying] the citizens of Wisconsin a timely resolution of issues that impact
voter rights and the integrity of our elections." State ex rel. Zignego v. Wis. Elec. Comm'n,
2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca Grassl Bradley, J., dissenting)).
Having neglected to identify any principles guiding its decisions, the majority leaves Wisconsin's
voters and candidates guessing as to when, exactly, they should file their cases in order for the
majority to deem them worthy of the court's attention.
The consequence of the majority operating by whim rather than rule is to leave the
interpretation of multiple election laws in flux—or worse yet, in the hands of the unelected
members of the WEC. "To be free is to live under a government by law . . . . Miserable is the
condition of individuals, danger is the condition of the state, if there is no certain law, or, which is
the same thing, no certain administration of the law . . . ." Judgment in Rex vs. Shipley, 21 St
Tr 847 (K.B. 1784) (Lord Mansfield presiding). The Wisconsin Supreme Court has an institutional
responsibility to decide important questions of law—not for the benefit of particular litigants, but
for citizens we were elected to serve. Justice for the people of Wisconsin means ensuring the
integrity of Wisconsin's elections. A majority of this court disregards its duty to the people of
Wisconsin, denying them justice.
"No aspect of the judicial power is more fundamental than the judiciary's exclusive
responsibility to exercise judgment in cases and controversies arising under the law." Gabler v.
Crime Victims Rights Bd., 2017 WI 67, ¶37, 376 Wis. 2d 147, 897 N.W.2d 384. Once again, a
majority of this court instead "chooses to sit idly by,"7 in a nationally important and time-sensitive
case involving voting rights and the integrity of Wisconsin's elections, depriving the people of
Wisconsin of answers to questions of statutory law that only the state's highest court may resolve.
The majority's "refusal to hear this case shows insufficient respect to the State of [Wisconsin], its
voters,"8 and its elections.
"This great source of free government, popular election, should be perfectly pure."
Alexander Hamilton, Speech at New York Ratifying Convention (June 21, 1788), in Debates on
the Federal Constitution 257 (J. Elliot ed. 1876). The majority's failure to act leaves an indelible
stain on our most recent election. It will also profoundly and perhaps irreparably impact all local,
statewide, and national elections going forward, with grave consequence to the State of Wisconsin
and significant harm to the rule of law. Petitioners assert troubling allegations of noncompliance
with Wisconsin's election laws by public officials on whom the voters rely to ensure free and fair
elections. It is not "impulse"9 but our solemn judicial duty to say what the law is that compels the
exercise of our original jurisdiction in this case. The majority's failure to embrace its duty (or even
United Student Aid Funds, Inc. v. Bible, 136 S. Ct. 1607, 1609 (2016) (Thomas, J.,
dissenting from the denial of certiorari).
7

8

County of Maricopa, Arizona v. Lopez-Valenzuela, 135 S. Ct. 2046, 2046 (2015)
(Thomas, J., dissenting from the denial of certiorari).
9

See Justice Hagedorn's concurrence.

1213 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 11 Document 55-11

Page 9
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

an impulse) to decide this case risks perpetuating violations of the law by those entrusted to follow
it. I dissent.
I am authorized to state that Chief Justice PATIENCE DRAKE ROGGENSACK and
Justice ANNETTE KINGSLAND ZIEGLER join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Andrew A. Jones
Andrew J. Kramer
James F. Cirincione
Hansen Reynolds LLC
301 N. Broadway St., Ste. 400
Milwaukee, WI 53202-2660
John W. McCauley
Hansen Reynolds LLC
10 E. Doty St. Ste 800
Madison, WI 53703
Jeffrey A. Mandell
Rachel E. Snyder
Stafford Rosenbaum LLP
222 W. Washington Avenue
Post Office Box 1784
Madison, WI 53701
Daniel R. Suhr
Liberty Justice Center
190 LaSalle St., Ste. 1500
Chicago, IL 60603
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street, Suite 500
Milwaukee, WI 53202

Charles G. Curtis
Michelle M. Umberger
Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Suite 201
Madison, WI 53703
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
Susman Godfrey LLP
1000 Louisiana Street
Suite 5100
Houston, TX 77002
Paul Smith
Campaign Legal Center
1101 14th Street NW, Suite 400
Washington, DC 20005
David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

Marc E. Elias

1214 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 11 Document 55-11

Page 10
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005

Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

1215 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 11 Document 55-11

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiff,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

NOTICE OF MOTION AND MOTION BY PROPOSED AMICUS CURIAE
WISCONSIN STATE CONFERENCE NAACP, DOROTHY HARRELL, WENDELL J.
HARRIS, SR., AND EARNESTINE MOSS FOR LEAVE TO FILE
AMICUS CURIAE BRIEF
The Wisconsin State Conference NAACP and three of its members, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss (collectively the “Wisconsin NAACP”), move the
Court, for permission to file the accompanying amicus curiae brief.
The grounds for this motion are as follows:

1.

On December 1, 2020, Plaintiff filed a Complaint for Declaratory, Emergency, and

Permanent Injunctive Relief. Relying on their 143-paragraph pleading, Plaintiff seeks, among other
things: (a) orders directing Governor Evers and the Wisconsin Elections Commission to de-certify
the election results, enjoining Governor Evers from transmitting the currently certified election
results to the Electoral College, and requiring Governor Evers to instead transmit certified election
results that state that President Donald Trump is the winner of the election; (b) a declaration that

1216

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 31 Document 56

the currently certified election results violated the Due Process Clause, U.S. CONST. Amend.
XIV; and (c) a “permanent injunction” prohibiting the Governor and Secretary of State from
transmitting the currently certified results to the Electoral College based on alleged
“overwhelming evidence of election tampering.” (Compl. at 48-50.)

2.

Approximately 3,240,268 citizens of Wisconsin voted for president on November

3, 2020. The Complaint seeks to nullify those votes and to force the Governor to transmit certified
election results that state that President Donald Trump is the winner of the election. This is contrary
to Wis. Stat. § 7.70(5)(b), which provides: “For presidential electors, the commission shall prepare
a certificate showing the determination of the results of the canvass and the names of the
persons elected, and the governor shall sign, affix the great seal of the state, and transmit the
certificate by registered mail to the U.S. administrator of General services.” (Emphasis added.)

3.

The statewide canvass of all 72 Wisconsin counties established that President-Elect

Joseph R. Biden, Jr. and Vice President-Elect Kamala Harris won the election by more than 20,000
votes. With the confirmation of election results from other states, the Biden- Harris ticket won
states with far more than 270 electoral votes, resulting in their victory.

4.

Instead of acknowledging the results of the election and conceding to the victors as

unsuccessful Presidential candidates have done for decade after decade, President Trump and Vice
President Pence, their prospective electors, and various interlopers have commenced a tidal wave
of bogus lawsuits, seeking to obstruct and delay the orderly and peaceful transition of power from
outgoing to incoming Administration that has been a hallmark of the democratic process in the
United States until this year.

5.

As of the filing of this motion, the lawsuits challenging the will of the American

people filed by the President and his devotees have overwhelmingly been rejected by the federal

1217

2
Case 2:20-cv-01771-PP Filed 12/07/20
Page 2 of 31 Document 56

and state courts. Unfortunately, this record of losing cases has left the President and his supporters
undeterred. This case is one of the more recently filed in the national exercise in futility and
harassment. It is part of a concerted assault on the foundations of the American electoral system.

6.

For the reasons set forth in this motion, Wisconsin NAACP hereby seeks leave to

file the accompanying amicus curiae brief and declarations of Ms. Harrell, Mr. Harris, and Ms.
Moss opposing any action on the Complaint, attached hereto as Exhibits 1-4, respectively.

7.

Founded in 1909 in response to the ongoing violence against Black people around

the United States, the National Association for the Advancement of Colored People (the
“NAACP”), a non-partisan and non-profit organization, is the largest and pre-eminent civil rights
organization in the nation. The NAACP’s mission is to secure the political, educational, social,
and economic equality of rights in order to eliminate race-based discrimination and ensure the
health and well-being of all persons.

8.

The NAACP’s primary objectives include: (a) ensuring the political, educational,

social, and economic equality of all citizens; (b) achieving equality of rights and eliminating race
prejudice among the citizens of the United States; (c) removing all barriers of racial
discrimination through democratic processes; (d) seeking enactment and enforcement of federal,
state, and local laws securing civil rights; (e) informing the public of the adverse effects of racial
discrimination and to seek its elimination; and (f) educating persons as to their constitutional rights
and to take all lawful action to secure the exercise thereof, and to take any other lawful action in
furtherance of these objectives, consistent with the NAACP’s founding documents. The NAACP
and its 2,200 branches and units in the United States advocate on behalf of the interests of its
members and regularly participate as amicus curiae in cases involving issues of concern to the
NAACP’s members. (See https://www.naacp.org/about-us/, last accessed on November 25, 2020.)

1218

3
Case 2:20-cv-01771-PP Filed 12/07/20
Page 3 of 31 Document 56

9.

One such branch is the Wisconsin NAACP, which has 7 local units and

approximately 4,000 members. Many of the Wisconsin NAACP’s members are eligible to vote in
Wisconsin, and a significant portion of them are registered to vote in Wisconsin. The vast majority
of Wisconsin NAACP’s members reside in Milwaukee County. The organization presently works
in the areas of voter registration, voter education, get-out-the- vote efforts, and grassroots
mobilization around voting rights. Wisconsin NAACP has an interest in preventing the
disenfranchisement of more than 3.2 million eligible Wisconsin voters who properly cast ballots
in the November 3, 2020 election, be it in person or absentee. If the relief sought in the Complaint
is granted, Wisconsin NAACP’s members who voted would be disenfranchised in violation of their
constitutional rights.

10.

The issues raised by the Complaint are of utmost importance to Wisconsin NAACP

because the results of a presidential election in this state lie in the balance. The Wisconsin NAACP
brings to the Court a unique perspective on racial equality and is well-suited to speak to the
allegations in the Complaint, particularly those directed at the Black voting experience in
Milwaukee and other Wisconsin counties with large concentration of Black voters.

11.

Wendell J. Harris, Sr. (“Harris”) lives in the City of Milwaukee, located in Milwaukee

County, Wisconsin and is registered to vote at his current address in Milwaukee. (Harris Decl. ¶ 4.) Harris
is also a member of the NAACP and has served as President of the Wisconsin NAACP since November
2019. (Id. ¶ 11.) For the November 3, 2020 General Election, Harris voted by absentee ballot because he
was ill with COVID-19 at the time and was concerned about infecting others. (Id. ¶ 6.) Harris mailed his
ballot from his Milwaukee residence on October 26, 2020. (Id. ¶ 5.)

12.

Earnestine Moss (“Moss”) lives in the City of Madison, located in Dane County, Wisconsin

and has been a registered voter at her current address in Madison since approximately 2006. (Moss Decl. ¶
4.) She is also a member of the NAACP Dane County Branch 36 AB. (Id. ¶ 6.) For the November 3, 2020

1219

4
Case 2:20-cv-01771-PP Filed 12/07/20
Page 4 of 31 Document 56

General Election, Moss voted in person at her polling place in Madison. (Id. ¶ 7.)

13.

Dorothy Harrell (“Harrell”) lives in the City of Beloit, located in Rock County, Wisconsin,

and has been a registered voter at her current address in Beloit for nearly ten years. (Harrell Decl. ¶ 4.)
Harrell is also the President of the Wisconsin NAACP Beloit Branch. (Id. ¶ 6.) For the November 3, 2020
General Election, Harrell voted early, in person at Beloit City Hall during the last week of October 2020.
(Id. ¶ 7.)

14.

Wisconsin NAACP sought consent from all parties to submit an amicus curiae brief

directed at the dismissal of the Complaint on December 7, 2020. Defendants consent to the relief
sought in this motion; Plaintiffs oppose it.

15.

For all of the foregoing reasons, in an action that seeks to throw out the results of

an entire election, Wisconsin NAACP is particularly suited to submit a non-party brief that would
be of significant value to the Court.
WHEREFORE, Wisconsin State Conference NAACP, Dorothy Harrell, Wendell J. Harris,
Sr., and Earnestine Moss respectfully request that this Court grant their motion for leave to file the
accompanying amicus curiae brief in support of the position advanced by the Defendants.
Dated this 7th day of December 2020.
/s/ Joseph S. Goode
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com

1220

5
Case 2:20-cv-01771-PP Filed 12/07/20
Page 5 of 31 Document 56

Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL RIGHTS
UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Amici Wisconsin State Conference
NAACP, Dorothy Harrell, Wendell J. Harris, Sr., and
Earnestine Moss

1221

6
Case 2:20-cv-01771-PP Filed 12/07/20
Page 6 of 31 Document 56

EXHIBIT 1

1222

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 31 Document 56

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiff,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

BRIEF IN OPPOSITION TO PLAINTIFF’S MOTION FOR EMERGENCY
INJUNCTIVE RELIEF OF PROPOSED AMICUS CURIAE WISCONSIN STATE
CONFERENCE NAACP, DOROTHY HARRELL, WENDELL J.
HARRIS, SR., AND EARNESTINE MOSS
INTRODUCTION
This lawsuit should be dismissed with prejudice on the pleadings. It is but one of 40-plus
cases that have been filed around the country by President Trump or his political allies seeking to
invalidate the results of the November 3, 2020 presidential election. It is the fifth such suit in
Wisconsin alone, and a sixth has since been filed. The substance and timing of the instant case and
the extreme and unprecedented relief it seeks constitute a continuation of an equally unprecedented
abuse of the court system, to which credence need not and should not be given.
Plaintiff has already placed a significant enough burden on the Court, so the Wisconsin
State Conference NAACP and its three participating members, Dorothy Harrell, Wendell J. Harris,
Sr., and Earnestine Moss (collectively the “Wisconsin NAACP”) will endeavor to not repeat the

1223

Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 31 Document 56

substantive arguments that we expect the parties will make. Rather, we seek to highlight some of
the stronger reasons why this Court should summarily dismiss this action. Three issues stand out:
(1) federal courts in particular are not the proper forum for suits like this; (2) Plaintiff’s inexcusable
delay in filing this action deprives him of the right to the relief he seeks; and (3) the relief he
seeks—the invalidation of approximately 3.2 million votes lawfully cast by eligible Wisconsin
voters—is so inapt, so wrong, indeed so absurd as to mandate rejection of Plaintiff’s plea without
further proceedings.
In offering this perspective, the proposed amici rely on the lessons taught by federal district
court and appellate judges in Pennsylvania, Georgia, and Michigan, who ruled that gussying up
run-of-the-mill state law claims and unsupported voter fraud claims as federal constitutional claims
is insufficient to invoke the jurisdiction of federal courts, and that suits brought even earlier than
this one were still brought too late. We rely also on the opinions of members of the Wisconsin
Supreme Court who, even while disagreeing on whether that court was the proper forum for an
original action challenging Wisconsin’s election results, raised serious threshold questions about
the availability of the extraordinary relief requested by the President and his allies in those cases.
Before proceeding, we offer one final thought. Wisconsin NAACP is not simply an
organization whose mission includes ensuring that voters’ votes are counted, important as that
mission is. It is dedicated specifically to advancing the interests of Black voters in our democracy.
To that end, the national NAACP has partnered with one of the country’s leading civil rights
organizations, the Lawyers’ Committee for Civil Rights Under Law, to work with experienced
local counsel in several states, including Wisconsin, to ensure that the votes of Black voters are
not invalidated in this election. It is no accident that Plaintiff’s focus in this case is on the voters
of Milwaukee County, home to Wisconsin’s largest city and Black population. This follows a
2

1224

Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 31 Document 56

pattern wherein the Trump Campaign and its allies have singled out alleged “corruption” in other
cities with large Black populations. 1
Wisconsin NAACP respectfully asks this Court to scrutinize Plaintiff’s claims in that light,
and recognize them not only as an existential threat to our democracy—which they are—but also
as a particular threat to the votes of members of minority populations whose access to the ballot
box has been historically obstructed.
Plaintiff’s Complaint does not deserve a day in court.
ARGUMENT
I.

THESE CASES DO NOT BELONG IN FEDERAL COURT.
On November 9, 2020, the Trump Campaign filed suit in the Middle District of

Pennsylvania alleging a series of election improprieties, similar (and equally frivolous) to those
alleged by Plaintiff here. Donald J. Trump for President, Inc. v. Kathy Boockvar, No. 4:20-cv02078, 2020 WL 6821992 (Nov.21, 2020). 2 Initially, United States District Court Judge Matthew
Brann scheduled an evidentiary hearing on the plaintiffs’ motion for preliminary relief, but after
hearing oral argument on the defendants’ motion to dismiss, he not only adjourned the hearing
without resetting it, but denied the plaintiffs’ motion for leave to file a second amended complaint.
Trump v. Boockvar, 2020 WL 6821992 at *3-4, 14. On appeal, a unanimous panel of the Third
Circuit affirmed the denial of the request to amend the complaint, with Judge Stephanos Bibas
writing for the Court and ruling that the sort of claims asserted by the plaintiffs, even though

See e.g., Transcript of Oral Argument Proceedings in Re: Motion to Dismiss, Donald J. Trump for President v.
Boockvar, No. 20-3371 (M.D. Pa., Nov. 17, 2020), at 18-19 (President Trump’s lawyer Rudy Giuliani alleging massive
voter fraud in Philadelphia, Pittsburgh, Detroit, Milwaukee, and Atlanta).
1

As here, the claims included allegations that election officials improperly cured absentee ballots and restricted
observers.

2

3

1225 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 31 Document 56

repackaged as federal due process and equal protection claims, “boil down to issues of state law.”
Donald J. Trump for President, Inc v. Pa., No. 20-3371, 2020 WL 7012522 at *1 (3d Cir. Nov 27,
2020).
Similar claims led to the identical result in a suit filed on November 13, 2020 in the
Northern District of Georgia by L. Lin Wood, Jr.—who also serves as counsel for Plaintiff in this
action—in which he alleged a series of election irregularities as frivolous as are Plaintiff’s. claims
here. L. Lin Wood, Jr. v. Brad Raffensperger, No. 1:20-cv-04651-SDG, 2020 WL 6817513 (N.D.
Ga., Nov. 20, 2020). 3 The district court held a hearing, then denied Wood’s request for a temporary
restraining order. This past Saturday, December 5, the Eleventh Circuit, in an opinion by Chief
Judge Pryor, unanimously affirmed on grounds that the case was not justiciable in the first instance,
because federal courts are “courts of limited jurisdiction” and “may not entertain post-election
contests about garden-variety issues of vote counting and misconduct that may properly be filed
in state courts.” Wood v. Raffensperger, No. 20-14418, 2020 WL 7094866 at *1 (11th Cir., Dec.
5, 2020).
Most recently, Judge Linda Parker of the Eastern District of Michigan also denied the
Plaintiffs’ Emergency Motion for Declaratory, Emergency, and Permanent Injunctive Relief
challenging the election results in Michigan, particularly in Detroit, in a case brought by Sidney
Powell—lead counsel for plaintiff in this case—and others on November 25. King v. Whitmer, No.
20-13134, slip op. (E.D. Mich., Dec. 7, 2020). The district court ruled without hearing oral
argument. Id. at 6. The court found that Plaintiffs’ claims were not justiciable in federal court
because they were effectively state law claims brought against state officials. Id. at 10-13.

Wood alleged, among other things, that defendant had improperly accepted absentee ballots without signature
verification and restricted observers to the counting.

3

4

1226 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 31 Document 56

This case presents no reason for the Court to veer from the path taken by these sister courts.
The claims are substantially the same: alleged deviations from state court laws that govern the
handling and counting of absentee ballots and wild conspiracy theories about voting machines. As
in the Michigan, Georgia, and Pennsylvania cases, there are no allegations that any specific voter
was not qualified to vote or that any specific vote was fraudulently cast, and certainly no evidence
beyond mere speculation by Plaintiff and non-credible analyses by unqualified “experts” that there
were a sufficient number of fraudulent votes to affect the outcome of the Presidential election.
There is no reason for this Court to continue this case, and, as explained below, every reason for
this Court not to. This is even more true because there is an active suit in state circuit court brought
by President Trump alleging noncompliance with Wisconsin election law that will be decided at a
hearing on December 10, 2020.
II.

PLAINTIFF’S DELAY DEPRIVES HIM OF THE RIGHT TO SEEK RELIEF. 4
Plaintiff knew of the bases for the claims he has brought in this suit earlier than December

1, 2020 when he filed this suit. For example, the guidance by the Wisconsin Elections Commission
(the “Commission”) to local clerks regarding application of the “indefinitely confined” category
of eligibility for obtaining an absentee ballot during the COVID-19 pandemic was issued on
March 29, 2020, with an additional directive issued May 13, 2020, as Plaintiff himself alleges.
(Compl., ¶ 40.) 5 Likewise, the practice of local clerks filling in missing witness address
information on absentee ballot envelopes without requiring the presence of the voter has been
Wisconsin NAACP does not agree that Plaintiff has standing to bring this case in the first instance under the Electors
or Elections Clause, see Lance v. Coffman, 549 U.S. 437, 442 (2007); Corman v. Torres, 287 F.Supp.3d 558, 573
(M.D. Pa. 2018); Bognet v. Sec’y Commw. of Pa., No. 20-3214, 2020 WL 6686120, at *6-9 (3d Cir. Nov. 13, 2020);
Wood v. Raffensperger, et. al., No. 1:20-CV-04651-SDG, 2020 WL 6817513, at *5 (N.D. Ga. Nov. 20, 2020); King,
slip op. at 26-29, or under the due process and equal protection clauses. See King, slip op. at 24-25. We assume that
the parties will make the same argument and therefore will not repeat it here.
4

5

The related instructions from the Dane County Clerk were issued on March 25, 2020.

5

1227 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 31 Document 56

mandated by the Commission since at least October 18, 2016, as Plaintiff himself alleges. 6
(Compl., ¶ 44.) Plaintiff’s utterly baseless claims about widespread coordinated manipulation of
voting machines amount to nothing more than wild conspiracy theories, based principally on a
single redacted declaration from an anonymous witness. (See Compl., Exh. 1.) But even that
declaration was purportedly signed on November 15, 2020, and the declarant purported to have
knowledge of the bases for Plaintiff’s allegations as early as a decade prior. (Compl., Exh. 1, ¶¶
11-26.)
Nevertheless, Plaintiff did not file suit until a month after Election Day, waiting until well
after he learned on November 4 that President Trump had lost the election in Wisconsin and indeed
until after that result had been certified. Laches bars this suit because of Plaintiff’s lack of diligence
and the prejudice resulting from the delay. Indeed, in the Northern District of Georgia post-election
lawsuit, involving a state election that was called against the President much later than Wisconsin’s
and still filed seventeen days before this lawsuit, the district court found that laches applied.
Wood, 2020 WL 6817513 at * 6-9. Additionally, in the Eastern District of Michigan lawsuit, filed
five days before this case, the district court also found that laches applied. King, slip op. at 19
(“Plaintiffs could have lodged their constitutional challenges much sooner than they did, and
certainly not three weeks after Election Day and one week after certification of almost three million
votes. The Court concludes that Plaintiffs’ delay results in their claims being barred by laches.”).
The Georgia court’s decision squares with how courts have handled similar cases in the
past. Plaintiff may not “‘lay by and gamble upon [his favored candidate] receiving a favorable
decision of the electorate’ and then, upon losing, seek to undo the ballot results in a court action.”

It was merely reiterated on October 19, 2020, (Compl., ¶ 45), still weeks before the election, and a month and a half
before Plaintiff filed this suit.
6

6

1228 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 31 Document 56

Hendon v. N.C. State Bd. of Elections, 710 F.2d 177, 182 (4th Cir. 1983) (quoting Toney v. White,
488 F.2d 310, 314 (5th Cir. 1973)).
Laches applies with particular rigor to election challenges, requiring “any claim against a
state electoral procedure [to] be expressed expeditiously.” Fulani, 916 F.2d at 1031. Before an
election, laches requires such claims to be promptly raised lest last-minute court orders confuse
voters, disincentivizing voting and undermining public confidence in the fairness of elections. See,
e.g., Purcell v. Gonzales, 549 U.S. 1, 4-5 (2006); Bognet v. Sec’y Commw. of Pa., No. 20-3214,
2020 WL 668120, at *17-18 (3d Cir. Nov. 13, 2020). And, after an election, laches generally bars
parties from challenging the election on grounds they could have raised beforehand. Soules v.
Kauaians for Nukoli Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988). Moreover, applying
laches avoids the “judicial fire drill[s]” and “mad scramble[s]” required to adjudicate belated
challenges to election procedures before post-election deadlines mandated by state law for
certification of results. Stein v. Cortés, 223 F.Supp.3d 423, 436 (E.D. Pa. 2016) (internal quotation
marks omitted).
Plaintiff offers no justification for delaying in asserting these claims until now—nor could
he, because there is none. Further, the delay is prima facie prejudicial, as the relief he requests
would void an entire election of more than 3.2 million eligible Wisconsin voters. See Hawkins v.
Wis. Elections Comm’n, 393 Wis.2d 629, 635 (2020) (denying petitioners’ ballot access claim
because, “given their delay in asserting their rights, [the court] would be unable to provide
meaningful relief without completely upsetting the election.”). And, by overturning the democratic
will of the people as expressed through their votes, Plaintiff’s requested relief would seriously and
irreparably undermine the Commission’s efforts to ensure public trust and confidence in
Wisconsin’s electoral system, including the trust and confidence of voters like those represented
7

1229 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 31 Document 56

by the Wisconsin NAACP, who have always had to fight for recognition as equals and access to
the vote. See Hawkins, 393 Wis.2d at 635-636 (denying relief in ballot access case against the
Commission where it would cause “confusion and disarray and would undermine confidence in
the general election results.”). Most important, it would severely prejudice more than 3.2 million
Wisconsin voters who cast ballots for the presidential candidate of their choice during the 2020
General Election. Equity cannot possibly sanction such a result.
III.

THE REMEDY REQUESTED IS PROHIBITED AS A MATTER OF LAW.
Overturning the results of an election—as Plaintiff asks this Court to do—would be an

extraordinary intervention by the judiciary into democratic processes. Again, the recent Georgia,
Michigan, and Pennsylvania cases provide useful guidance. The District Court in Georgia captured
the compelling reasons why relief should not be granted in cases like this:
The Court finds that the threatened injury to Defendants as state officials and the
public at large far outweigh any minimal burden on Wood. To reiterate, Wood seeks
an extraordinary remedy: to prevent Georgia's certification of the votes cast in the
General Election, after millions of people had lawfully cast their ballots. To
interfere with the result of an election that has already concluded would be
unprecedented and harm the public in countless ways. [citations]. Granting
injunctive relief here would breed confusion, undermine the public's trust in the
election, and potentially disenfranchise of over one million Georgia voters. Viewed
in comparison to the lack of any demonstrable harm to Wood, this Court finds no
basis in fact or in law to grant him the relief he seeks.
Wood, 2020 WL 6817513 at * 13.
Similarly, as the Third Circuit stated, granting the kind of relief requested by Plaintiff
here—“throwing out millions of votes—is unprecedented.” Trump v. Pa., 2020 WL 7012522
at *7 (emphasis in original). In Pennsylvania, the Third Circuit rightly concluded that, “[v]oters,
not lawyers, choose the President. Ballots, not briefs, decide elections.” Id. at *9. Judge Parker
of the Eastern District of Michigan reached a similar conclusion: “[T]he Court finds that
8

1230 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 31 Document 56

Plaintiffs are far from likely to succeed in this matter. In fact, this lawsuit seems to be less about
achieving the relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic orderly
statutory scheme established to challenge elections and to ignore the will of millions of voters.
This, the Court cannot, and will not, do. ¶ The People have spoken.” King, slip op., 35-36.
Indeed, granting Plaintiff’s requested relief would violate the longstanding principle that “all
qualified voters have a constitutionally protected right to vote and to have their votes counted.”
Reynolds v. Sims, 377 U.S. 533, 554 (1963) (citing Ex parte Yarbrough, 110 U.S. 651 (1884)
and United States v. Mosley, 238 U.S. 383 (1915)).
It is hard to imagine such a remedy could ever be appropriate, but certainly it is not here,
where Plaintiff has failed to put forth any credible evidence demonstrating that a single unlawful
vote was counted or valid ballot discarded. Nor has he pled a single cognizable claim. Plaintiff
instead alleges what amounts to a laundry list of speculative and circumstantial claims about the
potential for fraud and about the conduct of the election as a whole, which he asserts led to a
“fail[ure] to conduct the general election in a uniform manner,” (Compl., ¶ 117) and “disparate
treatment of Wisconsin voters,” (Compl., ¶ 144) related to the widespread use of mail-in ballots
by Wisconsin voters necessitated by the COVID-19 pandemic. But even if Plaintiff’s claims were
legitimate, invalidating the ballots of Wisconsin voters—who justifiably relied on the voting
procedures made available to them by the Wisconsin Legislature and the Commission—cannot
possibly be the appropriate remedy. Tossing out votes cast by eligible voters in reliance on official
instructions how to vote would violate the due process rights of every voter. See, e.g., Ne. Ohio
Coal. for Homeless v. Husted, 696 F.3d 580, 595, 597–98 (6th Cir. 2012) (holding that rejecting
ballots invalidly cast due to poll worker error likely violates due process).
9

1231 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 31 Document 56

Further, contrary to Plaintiff’s allegations, this is not Bush v. Gore. There, the Supreme
Court specifically distinguished the issue before it—whether there existed arbitrary and disparate
variations in the standards applied to whether a ballot should be counted—from “[t]he question …
whether local entities, in the exercise of their expertise, may develop different systems for
implementing elections.” 531 U.S. at 109. The prevailing rule is that, absent such arbitrary
differences in the standards used to determine whether individual ballots should be counted or
not—an issue not even hinted at in Plaintiff’s blunderbuss challenge here—differences in election
administration between local entities are not only permissible, but expected. See, e.g., Short v.
Brown, 893 F.3d 671, 679 (9th Cir. 2018); Ne. Ohio Coal. for Homeless v. Husted, 837 F.3d at
636; Wexler v. Anderson, 452 F.3d 1226, 1231-33 (11th Cir. 2006); Hendon v. N.C. State Bd. of
Elections, 710 F.2d at 181; Paher v. Cegavske, No. 20-243, 2020 WL 2748301, at *9 (D. Nev.
May 27, 2020); Donald J. Trump for President, Inc. v. Boockvar, No. 2:20-CV-966, 2020 WL
5997680, at *44-45.
Plaintiff’s request for injunctive relief—directing Defendants to “de-certify the election
results,” “enjoining transmitting the currently certified results the Electoral College [sic],” and
“requiring Governor Evers to transmit certified election results that state that President Donald
Trump is the winner of the election,” inter alia, Compl., ¶ 142, is beyond bizarre. Federal courts
lack the authority to determine which results a state must certify, let alone to “de-certify” results
that have already been certified—and slate of Electors already submitted—under lawful
constitutionally-determined and state-law-provided mechanisms, so Plaintiff’s request cuts against
the institutional role of each branch of the republic and each level of government. Here, the
Wisconsin Legislature has already acted within its authority: it vested the right to vote for President
in the people of Wisconsin, and the right to vote includes the right to have that vote counted. See
10

1232 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 31 Document 56

Reynolds, 377 U.S. at 554 (1964); U. S. v. Classic, 313 U.S. 299, 315 (1941); U.S. v. Mosley, 238
U.S. 383, 386 (1915).
In that vein, the Wisconsin Supreme Court has recognized that a remedy that would nullify
the votes of millions of voters is simply a bridge too far. In the past two weeks, three original
actions were brought directly to the Wisconsin Supreme Court to change the result of the election.
In each, a majority of that court held that such actions need to be brought in the circuit court first,
if they can be brought at all. Trump v. Evers, No. 2020AP1971-OA (Wis. S. Ct., Dec. 3, 2020);
Mueller v. Wis. Elections Comm’n, No. 2020AP1958-OA (Wis. S. Ct. Dec. 4, 2020): Wis. Voters
Alliance v. Wis. Elections Comm’n, No. 2020AP1930-OA (Wis. S. Ct., Dec, 4, 2020).
Beyond simply disposing of the cases, Justice Hagedorn, in his concurrence joined by three
justices who comprised the majority in Wisconsin Voters Alliance, made clear that the remedies
sought by President Trump and his supporters would cause irreparable damage to our democracy
if granted or even given serious thought:
Something far more fundamental than the winner of Wisconsin’s electoral votes
is implicated in this case. At stake, in some measure, is faith in our system of free
and fair elections, a feature central to the enduring strength of our constitutional
republic. It can be easy to blithely move on to the next case with a petition so
obviously lacking, but this is sobering. The relief being sought by the petitioners
is the most dramatic invocation of judicial power I have ever seen. Judicial
acquiescence to such entreaties built on so flimsy a foundation would do indelible
damage to every future election. Once the door is opened to judicial invalidation
of presidential election results, it will be awfully hard to close that door again.
This is a dangerous path we are being asked to tread. The loss of public trust in
our constitutional order resulting from the exercise of this kind of judicial power
would be incalculable.
Wis. Voters Alliance, (slip. op. at 3) (Wis. Sup. Ct., Dec, 4, 2020) (Hagedorn, J., concurring). 7
Even Chief Justice Roggensack, while dissenting in all three cases on the grounds that the Wisconsin Supreme Court
should exercise original jurisdiction, acknowledged in one of her dissents that “[t]he remedy Petitioners seek may be
out of reach for a number of reasons.” Trump v. Evers, No. 2020AP1971-OA (slip. op. at 6) (Wis. S. Ct., Dec, 3, 2020)
(Roggensack, C.J., dissenting).
7

11

1233 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 31 Document 56

CONCLUSION
For the reasons set forth above, Wisconsin State Conference NAACP, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss respectfully requests that this Court summarily dismiss
this case.
Dated this 7th day of December 2020.
/s/ Joseph S. Goode
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com

12

1234 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 31 Document 56

Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Amici Wisconsin State Conference
NAACP, Dorothy Harrell, Wendell J. Harris, Sr.,
and Earnestine Moss

13

1235 Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 31 Document 56

EXHIBIT 2

1236 Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 31 Document 56

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

DECLARATION OF DOROTHY HARRELL
I, Dorothy Harrell, hereby declare as follows:
1.

I have personal knowledge of the matters stated herein and would testify to the

same if called as a witness in Court.
2.

I am over eighteen years of age and am otherwise competent to testify in Court.

3.

I currently live in the City of Beloit, which is in Rock County.

4.

I am a registered voter at my current address in Beloit and have been registered here

for almost ten years.
5.

I am 71 years old; my racial background is African-American.

6.

I am the President of the Wisconsin NAACP Beloit Branch.

7.

For the November 3, 2020 general election, I voted in-person early voting at Beloit

City Hall at 100 State Street, Beloit, Wisconsin 53511. I voted early during the last week of
October, 2020.

1237 Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 31 Document 56

8.

I understand this lawsuit seeks to invalidate my vote and those of thousands of

Wisconsin absentee and in-person voters despite the fact those votes were legally cast.
9.

This lawsuit and any others like it need to be thrown out so that people of color can

regain their trust that they have legal rights in this society, which includes the right to vote. I also
think these suppression efforts are a waste of valuable resources in cities and states across this
country.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury, under the laws of the
United States, that the foregoing is true and correct to the best of my knowledge.
Dated this 7th day of December, 2020.
/s/ Dorothy Harrell
Dorothy Harrell

1238

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 31 Document 56

EXHIBIT 3

1239 Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 31 Document 56

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

DECLARATION OF WENDELL J. HARRIS, SR.
I, Wendell J. Harris, Sr., hereby declare as follows:
1.

I have personal knowledge of the matters stated in this Declaration and would

testify to them if called as a witness in Court.
2.

I am over eighteen years of age and am otherwise competent to testify.

3.

I currently live in the City of Milwaukee, which is located in Milwaukee County.

4.

I am registered to vote at my current address in Milwaukee.

5.

For the November 3, 2020 general election, I voted by absentee ballot because I

was ill with COVID-19 and was concerned about infecting others. I mailed my ballot from my
residence on October 26, 2020.
6.

Normally I vote in-person at the Enderis Park Polling Place at 2900 N 72nd St,

Milwaukee, WI 53210. I was unable to do this for the November 3, 2020 general election because
of my COVID-19 diagnosis.

1240 Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 31 Document 56

7.

I prefer to vote in-person because it is a way neighbors get to see each other. We

are on a first-name basis with the poll workers. It is a community effort and we all talk to each
other about the importance of voting and elections.
8.

I understand this lawsuit seeks to invalidate my vote and those of thousands of

Wisconsin absentee and in-person voters despite the fact that those votes were legally cast.
9.

If my vote were not counted, I would be robbed of this essential democratic voice,

through no fault of my own. If my vote does not count, my voice is not heard, and I am not
represented. As a result, I would lose faith in our democracy, of which I am very proud.
10.

Additionally, I am a member of the National Association for the Advancement of

Colored People (“NAACP”), a nonpartisan and non-profit organization.
11.

I currently serve as the President of the Wisconsin State Conference NAACP

(“Wisconsin NAACP”). I have held this position since November 2019.
12.

The Wisconsin NAACP is an affiliated unit of the NAACP which is comprised of

7 local units in Wisconsin.
13.

The Wisconsin NAACP has approximately 4,000 members in 7 units across

Wisconsin. Many of those members are eligible to vote in Wisconsin, and a significant portion of
them are registered to vote in Wisconsin. The vast majority of our members are in Milwaukee
County.
14.

The Wisconsin NAACP works in the areas of voter registration, voter education,

get-out-the-vote efforts, and grassroots mobilization around voting rights.
15.

For the 2020 general election, we continued these efforts including voter education,

voter registration, election protection, and grassroots mobilization to get out the vote. In addition,

1241

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 31 Document 56

Wisconsin NAACP members served as poll monitors statewide, but most of the work was done in
Milwaukee County.
16.

The Wisconsin NAACP has an interest in preventing the disenfranchisement of

eligible voters who properly cast absentee voter ballots, including voters it may have assisted in
navigating the absent voter voting process.
17.

Discarding lawfully cast absent voter ballots by qualified electors in Milwaukee

would effectively disenfranchise a disproportionate number of Black voters who cast such ballots
and is substantially likely to harm individual Wisconsin NAACP members who cast absent voter
ballots.
18.

Discarding lawfully cast absent voter ballots would also undermine the Wisconsin

NAACP’s voter advocacy efforts by leading some voters to believe that voting is pointless because
their ballots will not be counted. This sense of futility will likely depress turnout in the future and
make it more difficult for the Wisconsin NAACP to carry out its mission of encouraging Black
individuals to register to vote, to vote, and to help protect others’ right to vote.
19.

Moreover, discarding lawfully cast absent voter ballots will force the Wisconsin

NAACP to dedicate additional resources to voter education efforts, at the expense of other
organizational priorities. These questions will result in the Wisconsin NAACP spending additional
volunteer time and resources responding that could have been dedicated to other efforts.
20.

Furthermore, the rejection of Wisconsin voters’ absent voter ballots will force the

Wisconsin NAACP, in an effort to promote the effective enfranchisement of Black individuals, to
dedicate a larger share of its limited sources to voter education efforts, to ensure that voters cast
mail-in ballots that cannot be challenged or rejected on the basis of minor errors. Because the

1242

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 31 Document 56

Wisconsin NAACP’s resources are limited, those efforts will necessarily come at the expense of
other efforts, including voter registration and get out the vote drives.
I declare under penalty of perjury under the laws of the United States and pursuant to 28
U.S.C. § 1746, that the foregoing is true and correct.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury, under the laws of the
United States, that the foregoing is true and correct to the best of my knowledge.
Dated this 7th day of December, 2020.
/s/ Wendell J. Harris, Sr.
Wendell J. Harris, Sr.

1243

4
Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 31 Document 56

EXHIBIT 4

1244 Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 31 Document 56

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

DECLARATION OF EARNESTINE MOSS
I, Earnestine Moss, hereby declare as follows:
1.

I have personal knowledge of the matters stated in this Declaration and would

testify to them if called as a witness in Court.
2.

I am over eighteen years of age and am otherwise competent to testify in Court.

3.

I currently live in the City of Madison, which is in Dane County.

4.

I am a registered voter at my current address in Madison and have been since around

5.

I am 68 years old; my racial background is African-American.

6.

I am a member of the NAACP Dane County Branch 36AB, located in Madison.

7.

For the November 3, 2020 general election, I voted in person at Lakeview Lutheran

2006.

Church at 4001 Mandrake Road, Madison, Wisconsin 53704.

1245 Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 31 Document 56

8.

I love to vote in-person on Election Day as it is a great way to engage with my

community about the importance of voting and elections. Normally I offer rides to the polls and
see if my neighbors and friends voted already but I could not do that this year because of the
COVID-19 pandemic.
9.

I understand this lawsuit seeks to invalidate my vote and those of thousands of

Wisconsin absentee and in-person voters despite the fact that those votes were legally cast, and I
object to the notion that my voice would not be heard and I would not be represented.
10.

It is unfortunate that we live in a democracy that encourages voter engagement and

now that people are stepping up to the plate to make their voices heard, someone wants to question
their actions, without proof, and invalidate their votes, which are their voice.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury, under the laws of the
United States, that the foregoing is true and correct to the best of my knowledge.
Dated this 7th day of December, 2020.
/s/ Earnestine Moss
Earnestine Moss

1246 Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 31 Document 56

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,

No. 2:20-cv-1771

v.
WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARC L.
THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.

DEMOCRATIC NATIONAL COMMITTEE’S AMICUS CURIAE BRIEF
IN OPPOSITION TO PLAINTIFF’S AMENDED MOTION
FOR TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION (ECF NO. 10)

1247

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 39 Document 57

TABLE OF CONTENTS
INTRODUCTION AND SUMMARY OF THE ARGUMENT .................................................. 1
BACKGROUND ................................................................................................................... 6
A. WEC-Approved Practices ....................................................................................... 6
B. “Massive election fraud” ......................................................................................... 9
C. “Statistical anomalies and mathematical impossibilities” ........................................ 10
LEGAL STANDARD .......................................................................................................... 11
ARGUMENT ...................................................................................................................... 12
I. The Court should dismiss this case because Plaintiff lacks standing. ........................... 12
II. The doctrine of laches bars Plaintiff’s claims. ............................................................ 16
III. The Eleventh Amendment bars Plaintiff’s claims. ...................................................... 18
IV. Principles of federalism and comity strongly favor abstention..................................... 20
V. Plaintiff fails to state a claim on which relief can be granted. ...................................... 23
VI. Plaintiff is not entitled to a TRO or preliminary injunction. ........................................ 27
A. Plaintiff cannot establish irreparable harm and has an adequate remedy at law. ........ 27
B. The balance of equities and public interest weigh heavily against the issuance of a
restraining order or injunction. .............................................................................. 28
CONCLUSION ................................................................................................................... 29

-i-

1248

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 39 Document 57

TABLE OF AUTHORITIES

Page(s)

CASES
Am. Civil Rights Union v. Martinez-Rivera,
166 F. Supp. 3d 779 (W.D. Tex. 2015)....................................................................................13
AnchorBank, FSB v. Hofer,
649 F.3d 610 (7th Cir. 2011) ...................................................................................................11
Archie v. City of Racine,
847 F.2d 1211 (7th Cir. 1988) .................................................................................................20
Ariz. State Leg. v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787 (2015) (Roberts, C.J., dissenting) ......................................................................14
Ashcroft v. Iqbal,
556 U.S. 662 (2009) ...........................................................................................................23, 24
Balsam v. Sec’y of State,
607 F. App’x 177 (3d Cir. 2015) .............................................................................................19
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) ...........................................................................................................11, 23
Bennett v. Yoshina,
140 F.3d 1218 (9th Cir. 1998) .................................................................................................26
Bodine v. Elkhart Cnty. Election Bd.,
788 F.2d 1270 (7th Cir. 1986) .................................................................................................26
Bognet v. Sec’y of Commonwealth,
No. 20-3214, 2020 WL 6686120 (3d Cir. Nov. 13, 2020) ....................................13, 14, 25, 26
Bond v. United States,
564 U.S. 211 (2011) .................................................................................................................14
Bowes v. Indiana Secretary of State,
837 F.3d 813 (7th Cir. 2016) ...................................................................................................16
Carson v. Simon,
978 F.3d 1051 (8th Cir. 2020) .................................................................................................14
City Investing Co. v. Simcox,
633 F.2d 56 (7th Cir. 1980) .....................................................................................................21
Colon v. Schneider,
899 F.2d 660 (7th Cir. 1990) ...................................................................................................18

-ii-

1249

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 39 Document 57

TABLE OF AUTHORITIES

Page(s)

Curry v. Baker,
802 F.2d 1302 (11th Cir. 1986) ...............................................................................................26
Dean Foods Co. v. Brancel,
187 F.3d 609 (7th Cir. 1999) ...................................................................................................18
Democratic Nat’l Comm. v. Bostelmann,
451 F. Supp. 3d 952 (W.D. Wis. 2020) ...................................................................................12
Democratic Nat’l Comm. v. Bostelmann,
977 F.3d 639 (7th Cir. 2020) ...................................................................................................17
DePuy Synthes Sales, Inc. v. OrthoLA, Inc.,
953 F.3d 469 (7th Cir. 2020) ...................................................................................................22
Donald J. Trump for President, Inc. v. Boockvar,
No. 20-cv-966, 2020 WL 5997680 (W.D. Pa. Oct. 10, 2020) .....................................13, 19, 26
Donald J. Trump for President, Inc. v. Cegavske,
No. 2:20-CV-1445 JCM (VCF), 2020 WL 5626974 (D. Nev. Sept. 18, 2020).......................13
Donald J. Trump for President, Inc. v. Pennsylvania,
No. 20-3371, 2020 WL 7012522 (3d Cir. Nov. 27, 2020) ......................................5, 27, 28, 29
Firestone Fin. Corp. v. Meyer,
796 F.3d 822 (7th Cir. 2015) ...................................................................................................11
Fulani v. Hogsett,
917 F.2d 1028 (7th Cir. 1990) .................................................................................................16
Griffin v. Burns,
570 F.2d 1065 (1st Cir. 1978) ..................................................................................................26
Hawkins v. Wisconsin Elections Comm’n,
2020 WI 75, 393 Wis. 2d 629, 948 N.W.2d 877 (2020) ..........................................................17
Hotze v. Hollins,
No. 4:20-cv-03709, 2020 WL 6437668 (S.D. Tex. Nov. 2, 2020) ..........................................14
Jefferson v. Dane Cnty.,
No 2020AP557-OA (Mar. 31, 2020) (Ex. 6) .......................................................................8, 21
Jones v. Markiewicz-Qualkinbush,
842 F.3d 1053 (7th Cir. 2016) .................................................................................................16
Kasper v. Hayes,
651 F. Supp. 1311 (N.D. Ill. 1987), aff’d sub nom. Kasper v. Bd. of Election
Comm’rs, 810 F.2d 1167 (7th Cir. 1987).................................................................................26

1250

-iiiCase 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 39 Document 57

TABLE OF AUTHORITIES

Page(s)

King v. Whitmer,
No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020) (Ex. 4) ............................................6, 13, 22, 25
King v. Whitmer,
No. 2:20-cv-13134-LVP-RSW, ECF No. 1 (E.D. Mich. Nov. 25, 2020)......................3, 15, 18
Lance v. Coffman,
549 U.S. 437 (2007) (per curiam) ............................................................................................14
Langenhorst v. Pecore,
No. 1:20-cv-1701-WCG (E.D. Wis.) .........................................................................................2
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992) .................................................................................................................15
Martel v Condos,
No. 5:20-cv-131, 2020 WL 5755289 (D. Vt. Sept. 16, 2020) .................................................13
Massey v. Coon,
No. 87-3768, 1989 WL 884 (9th Cir. Jan. 3, 1989) .................................................................18
Mays v. Dart,
974 F.3d 810 (7th Cir. 2020) ...................................................................................................12
Mueller v. Jacobs,
No. 2020AP1958-OA (petition denied Dec. 3, 2020) (Ex. 3) ...................................................2
N. Tr. Co. v. Peters,
69 F.3d 123 (7th Cir. 1995) .....................................................................................................11
Nader v. Keith,
385 F.3d 729 (7th Cir. 2004) ...................................................................................................16
Navarro v. Neal,
904 F. Supp. 2d 812 (N.D. Ill. 2012), aff’d, 716 F.3d 425 (7th Cir. 2013) .............................17
Ohio Republican Party v. Brunner,
543 F.3d 357 (6th Cir. 2008) ...................................................................................................20
Paher v. Cegavske,
457 F. Supp. 3d 919 (D. Nev. 2020) ........................................................................................13
Pearson v. Kemp,
No. 1:20-cv-04809 (N.D. Ga. Nov. 25, 2020) ...........................................................................6
Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89 (1984) .............................................................................................................18, 20

1251

-ivCase 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 39 Document 57

TABLE OF AUTHORITIES

Page(s)

Railroad Comm’n v. Pullman Co.,
312 U.S. 496 (1941) .................................................................................................4, 20, 21, 23
Rucho v. Common Cause,
139 S. Ct. 2484 (2019) .............................................................................................................23
Shipley v. Chi. Bd. of Election Comm’rs,
947 F.3d 1056 (7th Cir. 2020) .................................................................................................28
SKS & Assocs., Inc. v. Dart,
619 F.3d 674 (7th Cir. 2010) ...................................................................................................23
Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016) .............................................................................................................12
Sw. Voter Registration Educ. Project v. Shelley,
344 F.3d 914 (9th Cir. 2003) ...................................................................................................18
Trump v. Evers,
No. 2020AP1971-OA (petition denied Dec. 3, 2020) (Ex. 2) .............................................2, 22
Trump v. Wisconsin Elections Comm’n,
E.D. Wis. No. 2:20-cv-01785-BHL ...........................................................................................1
Tully v. Okeson,
977 F.3d 608 (7th Cir. 2020) .............................................................................................12, 27
Ty, Inc. v. Jones Grp., Inc.,
237 F.3d 891 (7th Cir. 2001) ...................................................................................................27
United States v. Classic,
313 U.S. 299 (1941) .................................................................................................................28
United States v. Rural Elec. Convenience Co-op. Co.,
922 F.2d 429 (7th Cir. 1991) ...................................................................................................28
Walton v. Walker,
364 F. App’x 256 (7th Cir. 2010) ........................................................................................3, 24
Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7 (2008) .....................................................................................................................12
Wisconsin Right to Life State Political Action Comm. v. Barland,
664 F.3d 139 (7th Cir. 2011) .......................................................................................20, 21, 22
Wisconsin Voters All. v. Wisconsin Elections Comm’n,
No. 2020AP1930-OA (petition denied Dec. 4, 2020) (Ex. 1) .....................................2, 4, 5, 18

1252

-vCase 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 39 Document 57

TABLE OF AUTHORITIES

Page(s)

Wood v. Raffensperger,
No. 1:20-cv-04561-SDG, 2020 WL 6817513 (N.D. Ga. Nov. 20, 2020), aff’d,
No. 20-14418, 2020 WL 7094866 (11th Cir. Dec. 5, 2020) ....................................................29
Wood v. Raffensperger,
No. 20-14418, 2020 WL 7094866 (11th Cir. Dec. 5, 2020) ..............................................14, 16
STATUTES
3 U.S.C. § 6 ......................................................................................................................................1
Wis. Stat. § 6.86(2) (1985)..............................................................................................................7
Wis. Stat. § 227.40(1) ................................................................................................................8, 17
Wis. Stat. § 5.10 ...............................................................................................................................1
Wis. Stat. § 5.64(1)(em) ...................................................................................................................1
Wis. Stat. § 6.86(2)(a) ......................................................................................................................7
Wis. Stat. § 6.87 ...............................................................................................................................9
Wis. Stat. § 6.87(4)(b)......................................................................................................................8
Wis. Stat. § 6.87(4)(b)(2) .................................................................................................................7
Wis. Stat. § 7.70(3)(a) ......................................................................................................................1
Wis. Stat. § 7.70(5)(b)......................................................................................................................1
Wis. Stat. § 8.18, 8.25(1) .................................................................................................................1
Wis. Stat. § 9.01(11) ......................................................................................................................22
OTHER AUTHORITIES
Wright & Miller, 11A Federal Practice and Procedure, § 2948.1 (3d ed., Apr.
2017 update).............................................................................................................................27
Fed. R. Civ. P. 9(b) ......................................................................................................10, 11, 23, 24
Rule 8 .......................................................................................................................................23, 24
Rule 12(b)(6)..................................................................................................................................23
U.S. Const. art. I, § 4......................................................................................................................23
U.S. Const. art. I, § 4, cl. 1 .............................................................................................................24

1253

-viCase 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 39 Document 57

TABLE OF AUTHORITIES

Page(s)

U.S. Const. art. II, § 1, cl. 2 ...............................................................................................23, 24, 25

1254

-viiCase 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 39 Document 57

INTRODUCTION AND SUMMARY OF THE ARGUMENT
The Democratic National Committee (“DNC”) appreciates the Court’s invitation to file an
amicus curiae brief in opposition to Plaintiff’s Amended Motion for Temporary Restraining Order
and Preliminary Injunction (ECF No. 10). As the Court requested, the DNC will attempt to provide
“unique information and a unique perspective that the defendants do not have,” in order to “help
to fully develop the record.” ECF No. 41 at 17.
The DNC certainly has a “unique perspective” and a substantial stake in this litigation. Its
nominees for President and Vice-President, President-elect Joseph R. Biden, Jr. and Vice
President-elect Kamala D. Harris, won the 2020 national popular vote nearly five weeks ago by
over seven million votes. Biden and Harris are expected to win the Electoral College vote by a
tally of 306-232 when the College meets next Monday, December 14, 2020. In Wisconsin, the
Biden-Harris ticket initially won by a margin of 20,585 votes. The partial recount demanded by
President Trump and Vice President Pence, which at their behest was targeted at only two of
Wisconsin’s 72 counties, increased the Biden-Harris winning margin in Wisconsin to 20,682 votes.
Biden and Harris are therefore entitled—as a matter of state and federal law—to
Wisconsin’s ten electoral votes. See WIS. STAT. §§ 5.10, 5.64(1)(em), 7.70(5)(b), 8.18, 8.25(1).
The results of the Wisconsin Presidential election have been certified by the Chairperson of the
Wisconsin Elections Commission (“WEC”), and Governor Evers in turn has signed the Certificate
of Ascertainment and transmitted it to the Archivist of the United States. See 3 U.S.C. § 6; see also
Wis. Stat. §§ 7.70(3)(a), 7.70(5)(b). Wisconsin’s Presidential election is over.
Except in the courts. President Trump and his allies have now filed seven challenges in
Wisconsin’s state and federal courts since November 12, three of which remain pending: this
action brought solely by William Feehan, a Wisconsin voter who also is a nominated Trump
elector; Trump v. Wisconsin Elections Comm’n, E.D. Wis. No. 2:20-cv-01785-BHL, pending
-1-

1255

Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 39 Document 57

before Judge Ludwig; and President Trump’s state court challenge to the recount results, pending
in Trump v. Biden, Milwaukee Cnty. Case No. 2020-CV-7092 and Dane County Case No. 2020CV-2514.1
Like this case, these other challenges have all, in the words of Wisconsin Supreme Court
Justice Brian Hagedorn, sought to “invalidate the entire Presidential election in Wisconsin by
declaring it ‘null’—yes, the whole thing,” a result that “would appear to be unprecedented in
American history.” Wisconsin Voters All. v. Wisconsin Elections Comm’n, No. 2020AP1930OA, at 2 (Wis. Sup. Ct. Dec. 4, 2020) (Hagedorn, J., concurring) (emphasis added) (Ex. 1).2 And
just like the Wisconsin Voters All. case that Justice Hagedorn described—which raised many of
the same allegations and relied on much of the same “expert” testimony and other “evidence” that
is being recycled in this litigation—Plaintiff’s submissions “fall[] far short of the kind of
compelling evidence and legal support we would undoubtedly need to countenance the courtordered disenfranchisement of every Wisconsin voter.” Id. (emphasis added).
Not only is this case part of serial post-election litigation in Wisconsin, it is also the fourth
“cookie-cutter” complaint filed nationwide in recent weeks by attorneys Sidney Powell, L. Lin
1

Three of the other Wisconsin post-election cases were petitions for original actions filed
in Wisconsin Supreme Court; all were denied. See Trump v. Evers, No. 2020AP1971-OA (petition
denied Dec. 3, 2020) (Ex. 2); Mueller v. Jacobs, No. 2020AP1958-OA (petition denied Dec. 3,
2020) (Ex. 3); Wisconsin Voters All. v. Wisconsin Elections Comm’n, No. 2020AP1930-OA, at 2
(petition denied Dec. 4, 2020) (Ex. 1). The remaining case challenging the Wisconsin election
results was Langenhorst v. Pecore, No. 1:20-cv-1701-WCG (E.D. Wis.), filed on November 12
but voluntarily dismissed on November 16.
2

The Trump recount effort does not seek to invalidate the entire Wisconsin vote, but rather
seeks to nullify large numbers of ballots in only Dane and Milwaukee Counties—the two most
urban, nonwhite, and Democratic counties in the State. Most of the targeted votes were cast in
reliance on WEC guidance, practices, and forms dating back as long as a decade. Voters and local
election officials throughout Wisconsin relied on the challenged WEC guidance, practices, and
forms, but President Trump seeks to invalidate only the ballots of Dane and Milwaukee County
voters who did so. That would blatantly violate equal protection guarantees.

1256

-2Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 39 Document 57

Wood, and others in which they seek to baselessly undermine the legitimacy of the presidential
election by fanning the flames of repeatedly debunked wingnut conspiracy theories, relying on the
same discredited and/or unnamed “experts.”3 As discussed below, two of those lawsuits already
have been dismissed. As those dismissals show, the willingness of Plaintiff’s counsel to propagate
their fantastical allegations across multiple jurisdictions does not make his claims any more
plausible, actionable, or meritorious.

The Seventh Circuit has emphasized that seemingly

“paranoid” allegations of “a vast, encompassing conspiracy” must meet a “high standard of
plausibility” before a plaintiff may proceed, with the court “making the determination of
plausibility” by “rely[ing] upon judicial experience and common sense.” Walton v. Walker, 364
Fed. App’x 256, 258 (7th Cir. 2010) (citation omitted). It is an understatement to say Mr. Feehan’s
allegations are “implausible.”
There are multiple other grounds for denying Mr. Feehan’s requests for emergency relief.
These include:


Mr. Feehan lacks Article III standing either as a voter or a nominated Trump elector.
His claims of vote dilution and other alleged injuries (even if they had a plausible basis,
which they do not) are generalized grievances, not individual harms to him.



Many of Mr. Feehan’s claims are barred by laches because he could have sought
judicial relief prior to the election, before 3.2 million Wisconsin voters had cast their

3

In addition to the Feehan action, see Compl., King v. Whitmer, No. 2:20-cv-13134-LVPRSW, ECF No. 1 (E.D. Mich. Nov. 25, 2020); Compl., Pearson v. Kemp, No. 1:20-cv-4809, ECF
No. 1 (N.D. Ga. Nov. 25, 2020); Compl., Boyer v. Ducey, No. 2:20-cv-02321-DJH, ECF No. 1 (D.
Ariz. Dec. 4, 2020). The cookie-cutter character of the pleadings in these actions is revealed in
part by Plaintiff’s attacks on the alleged failures to enforce Wisconsin’s “signature verification
requirement.” ECF No. 9 (“Amend. Compl.”) at 49. Wisconsin has no signature verification
requirement.

1257

-3Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 39 Document 57

ballots. And all of his claims are barred by laches because he has waited for so long
after the election to bring suit—nearly a full month.


Mr. Feehan’s claims also are barred under blackletter Eleventh Amendment law. He
cannot ask a federal court to adjudicate state law claims against state actors, and he
cannot turn those claims into federal questions by relabeling them as due process, equal
protection, or other federal constitutional violations.



Basic principles of federalism and comity also counsel both Pullman and Colorado
River abstention.



Mr. Feehan states no claim upon which relief can be granted, instead positing a
sweeping and implausible conspiracy by foreign and domestic malefactors to steal the
election, together with an assortment of baseless allegations that Defendants violated
state election law.



Mr. Feehan satisfies none of the requirements for the injunctive relief he seeks. He is
not likely to succeed on the merits, he has failed to establish he will suffer irreparable
harm, and both the public interest and the equities weigh decisively against him.

This Court should therefore deny Plaintiff’s amended motion for a TRO or preliminary
injunction and dismiss this suit in its entirety. President Trump and his allies have now brought
dozens of lawsuits in state and federal courts throughout the Nation seeking to challenge the
election results, and in many instances to nullify those results outright.4 None of those cases has
succeeded. Nor should this one.

4

Alanna Durkin Richer, Trump loves to win but keeps losing election lawsuits, AP NEWS
(Dec. 4, 2020), https://apnews.com/article/donald-trump-losing-election-lawsuits36d113484ac0946fa5f0614deb7de15e.

1258

-4Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 39 Document 57

State and federal judges from across the ideological spectrum have united in rejecting these
sorts of flimsy and audacious attacks on the Presidential election results and the rule of law, as
many of the citations in this brief will attest. Lawsuits like these not only are an abuse of process,
they continue to, and perhaps are intended to, erode public confidence in our electoral system. The
corrosive effects are like battery acid on the body politic. There must be an end to spurious
litigation, and courts must communicate that to current and would-be litigants and their lawyers.
As Justice Hagedorn emphasized last week in his Wisconsin Voters All. concurrence:
I feel compelled to share a further observation. Something far more fundamental
than the winner of Wisconsin’s electoral votes is implicated in this case. At stake,
in some measure, is faith in our system of free and fair elections, a feature central
to the enduring strength of our constitutional republic. It can be easy to blithely
move on to the next case with a petition so obviously lacking, but this is sobering.
The relief being sought by the petitioners is the most dramatic invocation of
judicial power I have ever seen. Judicial acquiescence to such entreaties built on
so flimsy a foundation would do indelible damage to every future election. Once
the door is opened to judicial invalidation of presidential election results, it will be
awfully hard to close that door again. This is a dangerous path we are being asked
to tread. The loss of public trust in our constitutional order resulting from the
exercise of this kind of judicial power would be incalculable.
Ex. 1 at 2 (emphasis added). Other courts have joined not only in dismissing, but in strongly
condemning, insidious lawsuits like these seeking the “drastic,” “breathtaking,” “unprecedented,”
and “disenfranchising” relief of nullifying the voters’ decision and awarding the election to
President Trump. Donald J. Trump for President, Inc. v. Pennsylvania, No. 20-3371, 2020 WL
7012522, at **1-7 (3d Cir. Nov. 27, 2020).
Earlier today, a federal court in Michigan dismissed another “cookie-cutter” lawsuit
brought by these same counsel advancing the same allegations as here with the following
observation:
[T]he Court finds that Plaintiffs are far from likely to succeed in this matter. In
fact, this lawsuit seems to be less about achieving the relief Plaintiffs seek—as
much of that relief is beyond the power of this Court—and more about the impact
of their allegations on People’s faith in the democratic process and their trust in our

1259

-5Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 39 Document 57

government. Plaintiffs ask this Court to ignore the orderly statutory scheme
established to challenge elections and to ignore the will of millions of voters. This,
the Court cannot, and will not, do.
Slip Op. at 35-36, King v. Whitmer, No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020) (Ex. 4). And
still another of the four “cookie-cutter” lawsuits brought by Mr. Feehan’s counsel was dismissed
from the bench this morning by a federal court in Georgia. See Pearson v. Kemp, No. 1:20-cv04809 (N.D. Ga. Nov. 25, 2020).5
Respectfully, this Court should likewise not only deny Plaintiff’s requested relief, but
should dismiss and condemn this litigation in the strongest terms possible.
BACKGROUND
Mr. Feehan’s Amended Complaint is a cut-and-paste job from other lawsuits that bolts
together into one pleading various generalized grievances and conspiracy theories that fall into
three broad categories.
A.

WEC-Approved Practices

The Amended Complaint argues that the WEC violated Wisconsin election statutes by
providing unauthorized guidance that was widely relied upon by voters and local election
officials—in one instance, for over four years. Plaintiff now seeks to exclude these votes cast in
reliance on WEC guidance on the theory that these “illegal” votes “diluted” his single vote. See
generally Amend. Compl. ¶¶ 1, 14, 37-45, 104-07, 116.

5

Nicole Carr, Federal judge dismisses Sidney Powell lawsuit seeking to decertify
Georgia’s elections, WSB-TV2.com (Dec. 7, 2020), (available at:
https://urldefense.proofpoint.com/v2/url?u=https-3A__protect2Dus.mimecast.com_s_EVT4Cv29yYU778N0uQNLbw_&d=DwMFg&c=XRWvQHnpdBDRhyzrHjqLpXuHNC_9nanQc6pPG_SpT0&r=ujHaccxZeCkVMgPPje6IryfbR0QhDRwqm2pPPtsv
haw&m=Eq0xjcOJkBwSYhlm3PuGAZhfC4GhCttJ4_A4ZTuutbw&s=bRBVgiwxyHTpRvu36TxkTFObbXDtRBq3fwpDppFaSY&e=)

1260

-6Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 39 Document 57

“Indefinitely confined” exemption. Voters who self-certify that they are “indefinitely
confined because of age, physical illness or infirmity or . . . disabled for an indefinite period” are
not required to submit photocopies of their photo IDs with their absentee ballot applications. Wis.
Stat. §§ 6.86(2)(a), 6.87(4)(b)(2). After the pandemic hit Wisconsin in March and the Evers
Administration issued a “Safer-at-Home Order” on March 24, some county clerks advised voters
they could claim to be “indefinitely confined” pursuant to the order for purposes of voting absentee
in the April 7 spring election. Both the WEC and the Wisconsin Supreme Court disagreed with
that broad and unqualified reading. Instead, the WEC issued, and the State’s high court endorsed,
much narrower guidance that left the decision to individual voters subject to certain guidelines.
The WEC’s March 29, 2020 guidance, which remains in effect, provides in pertinent part:
1. Designation of indefinitely confined status is for each individual voter to make
based upon their current circumstance. It does not require permanent or total
inability to travel outside of the residence. The designation is appropriate for
electors who are indefinitely confined because of age, physical illness or infirmity
or are disabled for an indefinite period.
2. Indefinitely confined status shall not be used by electors simply as a means to
avoid the photo ID requirement without regard to whether they are indefinitely
confined because of age, physical illness, infirmity or disability.
Ex. 5. The WEC’s guidance emphasized that, “[d]uring the current public health crisis, many
voters of a certain age or in at-risk populations may meet that standard of indefinitely confined
until the crisis abates.” Ex. 5 (emphasis added).6

6

Wisconsin has a decades-long legislative policy of taking voters at their word concerning
“indefinite confinement.” The relevant portion of what is now numbered Section 6.86(2)(a) has
been unchanged since 1985, when the Legislature eliminated a formal affidavit requirement for
those claiming to be “indefinitely confined” and allowed voters to self-certify instead. See WIS.
STAT. § 6.86(2) (1985). Consistent with this statutory self-certification approach, the
Commission’s guidance emphasizes the importance of avoiding any “proof” requirements.
“Statutes do not establish the option to require proof or documentation from indefinitely confined
voters. Clerks may tactfully verify with voters that the voter understood the indefinitely confined

1261

-7Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 39 Document 57

In a March 31, 2020 order, the Wisconsin Supreme Court granted the Republican Party of
Wisconsin’s motion for a temporary restraining order, directing the Dane County Clerk to “refrain
from posting advice as the County Clerk for Dane County inconsistent with” the above quote from
the WEC guidance. Jefferson v. Dane Cnty., No 2020AP557-OA (Mar. 31, 2020) (Ex. 6) . Neither
the WEC nor the Wisconsin Supreme Court provided further guidance before the November 3
election; WEC’s March 29 guidance (as endorsed by the State’s highest court) thus remained in
effect through the election, and voters throughout the State relied upon it.
But like other Wisconsin litigants seeking to upend the November 3rd election in recent
weeks, Mr. Feehan now argues that the WEC’s definition of “indefinitely confined” is far too
lenient, that WEC should have allowed local officials to demand further proof, and that WEC
should have taken further efforts to limit reliance on the “indefinitely confined” exemption in the
midst of the worst global pandemic in over a century. Amend. Compl. ¶¶ 1, 14, 37-45, 104-07,
116. Mr. Feehan offers no explanation for why he waited until after the election to challenge
WEC’s guidance, as he easily could have done under Wis. Stat. § 227.40(1). Nor does Mr. Feehan
offer any actual facts showing that the WEC’s supposedly problematic interpretation led to any
abuse of the “indefinitely confined” provision. Instead, he relies upon the claim of a purported
“expert” that precisely 96,437 voters “were improperly relying on the ‘indefinitely confined’
exemption to voter ID” in last month’s election, as if Mr. Feehan or his expert has any clue about
the health and veracity of nearly 100,000 Wisconsin citizens. Id. ¶ 59.
Witness address requirement. An absentee voter must complete her ballot and sign a
“Certification of Voter” on the absentee ballot envelope in the presence of a witness. Wis. Stat.

status designation when they submitted their request, but they may not request or require proof.”
Ex. 5.

1262

-8Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 39 Document 57

§ 6.87(4)(b). The witness must then sign a “Certification of Witness” on the envelope, which must
include the witness’s address. Wis. Stat. § 6.87. Since October 2016, the WEC has instructed
municipal clerks that, while they may never add missing signatures, they “must take corrective
action” to add missing witness addresses if they are “‘reasonably able to discern’” that information
by contacting the witnesses or looking up the addresses through reliable sources. Ex. 7. The WEC
has repeated these instructions in multiple guidance documents over the past four years. See Ex.
8 (guidance in current WEC Election Administration Manual that clerks “may add a missing
witness address using whatever means are available,” and “should initial next to the added witness
address”). This construction was adopted unanimously by the WEC over four years ago; has
governed in eleven statewide races since then, including the 2016 presidential election and recount;
has been relied upon by local election officials and voters throughout the State; and has never been
challenged through Chapter 227 judicial review or otherwise. Ex. 9 at 4–5.
Until now. Like the plaintiffs in many of the other Wisconsin court challenges in the past
month, Mr. Feehan argues that WEC has exceeded its statutory authority over the past four years
in requiring clerks to attempt to fill in missing witness addresses, and seeks to exclude all such
ballots cast last month. Amend. Compl. ¶¶ 14, 43-45, 104-05. Here again, he offers no explanation
for why he waited until after the election to raise this challenge.
B.

“Massive election fraud”

Most of Mr. Feehan’s Amended Complaint is devoted to recounting the supposed details
of a “massive election fraud” perpetrated by Dominion Voting Systems and a motley collection of
unnamed “domestic third parties or hostile foreign actors,” including “rogue actors” in Iran, China,
and Venezuela. Amend. Compl. ¶¶ 1, 6, 16, 70, 81; see generally id. ¶¶ 3, 46-50, 52, 60-99. Mr.
Feehan says at one point that he is “seeking to hold election riggers like Dominion to account and
to prevent the United States’ descent into Venezuelan levels of voting fraud and corruption out of

1263

-9Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 39 Document 57

which Dominion was born.” Id. ¶ 94. Many of the supposed evidentiary sources are “redacted,”
so we have no idea who (or what) is feeding these tales to Mr. Feehan’s credulous lawyers. The
Amended Complaint throws out the word “fraud” (or variations like “fraudulent”) no fewer than
47 times, but none of those allegations of fraud meets Fed. R. Civ. P. 9(b) standards. Not one.
It is difficult to figure out why, precisely, Mr. Feehan’s lawyers are pulling Governor Evers
and the individual members of the WEC into the web of what Ms. Powell has now infamously
called this “Kraken.”7 The Amended Complaint repeatedly makes false and frivolous claims such
as this: “The multifacted schemes and artifices implemented by Defendants”—that is, the WEC
Commissioners and Governor Evers—“and their collaborators to defraud resulted in the unlawful
counting, or fabrication, or hundreds of thousands of illegal, ineligible, duplicate or purely
fictitious ballots in the State of Wisconsin.” Amend. Compl. ¶ 4. These “Kraken” allegations
against the defendants are not only implausible, but outrageous.
C.

“Statistical anomalies and mathematical impossibilities”

Mr. Feehan’s lawyers also submit various declarations from so-called “experts,” purporting
to point out perceived “statistical anomalies and mathematical impossibilities” in the data they
have examined that have led them to deduce that “it is statistically impossible for Joe Biden to
have won Wisconsin.” Id. ¶ 1. Never mind the statewide canvass process and the rigorous recount
process in Dane and Milwaukee Counties. Never mind the pending state recount litigation. And
never mind all the other media and public scrutiny of the Wisconsin election returns over the past
month. Because a few “experts” believe there is a “statistical impossibility” that Joe Biden carried

7

Davey Alba, ‘Release the Kraken,’ a catchphrase for unfounded conspiracy theory,
trends on Twitter, N.Y. TIMES (Nov. 17, 2020),
https://www.nytimes.com/2020/11/17/technology/release-the-kraken-a-catchphrase-forunfounded-conspiracy-theory-trends-on-twitter.html.

1264

-10Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 39 Document 57

Wisconsin, Mr. Feehan and his counsel insist “this Court must set aside the results of the 2020
General Election” and issue “[a]n order requiring Governor Evers to transmit certified election
results that state that President Donald Trump is the winner of the election.” Id. ¶¶ 5, 142(3).
Requests like these would be laughable if they were not so antidemocratic and unconstitutional.
LEGAL STANDARD
Motion to Dismiss. Although the DNC as a nonparty may not move to dismiss Mr.
Feehan’s claims, it may properly oppose Feehan’s requested injunctive relief by showing that
Feehan’s Amended Complaint fails to state a cognizable claim for relief. In deciding a motion to
dismiss, the Court presumes the veracity of all well-pleaded material allegations in the Complaint,
Firestone Fin. Corp. v. Meyer, 796 F.3d 822, 826 (7th Cir. 2015), but “a plaintiff’s obligation to
provide the ‘grounds’ of his ‘entitle[ment] to relief’ requires more than labels and conclusions, and
a formulaic recitation of the elements of a cause of action will not do.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 545 (2007) (alteration in original) (quoting Fed. R. Civ. P. 8(a)). “[C]onclusory
statements of law . . . and their unwarranted inferences . . . are not sufficient to defeat a motion to
dismiss for failure to state a claim.” N. Tr. Co. v. Peters, 69 F.3d 123, 129 (7th Cir. 1995).
Mr. Feehan’s drumbeat of claims about alleged “fraud” are subject to the pleading
requirements of Fed. R. Civ. P. 9(b), which require a party pleading fraud to “state with
particularity the circumstances constituting fraud.” This standard “ordinarily requires describing
the ‘who, what, when, where, and how’” of the fraud. AnchorBank, FSB v. Hofer, 649 F.3d 610,
615 (7th Cir. 2011).
Motion for Preliminary Injunction. To obtain a preliminary injunctive relief “a movant
‘must make a threshold showing that (1) absent preliminary injunctive relief, he will suffer
irreparable harm in the interim prior to a final resolution; (2) there is no adequate remedy at law;

1265

-11Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 39 Document 57

and (3) he has a reasonable likelihood of success on the merits.” Tully v. Okeson, 977 F.3d 608,
612–13 (7th Cir. 2020). Then, “if the movant makes this threshold showing, the court proceeds to
consider the balance of harms between the parties and the effect of granting or denying a
preliminary injunction on the ‘public interest.’” Id. (quoting Turnell v. CentiMark Corp., 796 F.3d
656, 662 (7th Cir. 2015)); see also Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008);
Democratic Nat’l Comm. v. Bostelmann, 451 F. Supp. 3d 952, 968 (W.D. Wis. 2020) (applying
same standard to request for temporary restraining order).
This is a demanding standard in any case but, where, as here, plaintiffs seek a mandatory
injunction, it is heightened. See, e.g., Mays v. Dart, 974 F.3d 810, 818 (7th Cir. 2020) (“Mandatory
preliminary injunctions—those ‘requiring an affirmative act by the defendant’—are ‘ordinarily
cautiously viewed and sparingly issued.’”) (quoting Graham v. Med. Mut. of Ohio, 130 F.3d 293,
295 (7th Cir. 1997)).
ARGUMENT
I.

The Court should dismiss this case because Plaintiff lacks standing.
To avoid dismissal on Article III grounds, a “plaintiff must have (1) suffered an injury in

fact, (2) that is fairly traceable to the challenged conduct of the defendant, and (3) that is likely to
be redressed by a favorable judicial decision.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016). (citation omitted). Mr. Feehan fails all three prongs.
No cognizable injury-in-fact. Mr. Feehan has failed to establish that he has suffered an
injury in fact sufficient to maintain any of his claims. As to his equal protection and due process
claims in Counts II and III (as well as his freestanding fraud claim in Count IV, for which he cites
neither a constitutional nor statutory basis), Feehan does not allege that he suffered any specific
harm as a presidential elector, or that, as a voter, he was deprived of the right to vote; instead, he
alleges that “Defendants failed to comply with the requirements of the Wisconsin Election Code

1266

-12Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 39 Document 57

and thereby diluted the lawful ballots of the Plaintiff and of other Wisconsin voters and electors.”
Amend. Compl. ¶ 116; see also id. ¶¶ 114, 125-26, 136. But Plaintiff’s theory of vote-dilutionthrough-unlawful-voting has been thoroughly and repeatedly rejected by federal courts as a viable
basis for standing (including in several decisions in the last few weeks alone). See, e.g., Slip Op.
at 25, King v. Whitmer, No. 2:20-cv-13134, (E.D. Mich. Dec. 7, 2020) (no standing in cookiecutter litigation) (Ex. 4); Bognet v. Sec’y of Commonwealth, No. 20-3214, 2020 WL 6686120, at
*11-14 (3d Cir. Nov. 13, 2020) (“This conceptualization of vote dilution—state actors counting
ballots in violation of state election law—is not a concrete harm under the Equal Protection Clause
of the Fourteenth Amendment”); Donald J. Trump for President, Inc. v. Cegavske, No. 2:20-CV1445 JCM (VCF), 2020 WL 5626974, at *4 (D. Nev. Sept. 18, 2020) (similar).
Thus, in Donald J. Trump for President v. Boockvar, the court rejected a challenge to
restrictions on poll watchers and ballot challenges on a theory, like the one Plaintiff advances, that
state practices constituted fraud and thus diluted lawfully submitted votes. The court found that
the fears of voter fraud that animated the claims were “based on a series of speculative events—
which falls short of the requirement to establish a concrete injury.” 2020 WL 5997680, at *33.
Other cases have reached similar results. See, e.g., Martel v Condos, No. 5:20-cv-131, 2020 WL
5755289, at *3-5 (D. Vt. Sept. 16, 2020) (holding voters challenging a directive expanding voteby-mail lacked concrete and particularized injury necessary for standing); Paher v. Cegavske, 457
F. Supp. 3d 919, 925-26 (D. Nev. 2020) (same); Am. Civil Rights Union v. Martinez-Rivera, 166
F. Supp. 3d 779, 789 (W.D. Tex. 2015) (“[T]he risk of vote dilution” as a result of allegedly
inaccurate voter rolls “[is] speculative and, as such, [is] more akin to a generalized grievance about
the government than an injury in fact.”). Mr. Feehan’s claims are similarly deficient.
Feehan also claims he has suffered harm as a result of alleged violations of the Elections

1267

-13Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 39 Document 57

and Electors Clauses, but that injury, too, has been repeatedly rejected as “precisely the kind of
undifferentiated, generalized grievance about the conduct of government” insufficient to constitute
an injury for Article III standing. Lance v. Coffman, 549 U.S. 437, 442 (2007) (per curiam); accord
Wood v. Raffensperger, No. 20-14418, 2020 WL 7094866, *4 (11th Cir. Dec. 5, 2020) (“Wood
cannot explain how his interest in compliance with state election laws is different from that of any
other person.”). Plaintiff’s reliance on Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020), is
misplaced. See Amend. Compl. ¶ 25. There, the Eighth Circuit held that “[a]n inaccurate vote
tally is a concrete and particularized injury” to electors, under the theory that Minnesota electors
are candidates for office under Minnesota law. 978 F.3d at 1058. Carson is neither binding on
this Court nor in the legal mainstream; federal courts have repeatedly held that even candidates for
office lack Article III standing to challenge alleged violations of state law under the Elections
Clause. See Bognet, 2020 WL 6686120, at *6-7 (voters and candidate lacked standing to bring
claims under Elections and Electors Clauses); id. at *8 n.6 (rejecting Carson as being based on an
incorrect reading of Bond v. United States, 564 U.S. 211 (2011)); Hotze v. Hollins, No. 4:20-cv03709, 2020 WL 6437668, at *2 (S.D. Tex. Nov. 2, 2020) (holding candidate lacked standing
under Elections Clause and concluding that Supreme Court’s cases “stand for the proposition that
only the state legislature (or a majority of the members thereof) have standing to assert a violation
of the Elections Clause,” but not individuals).8 Neither of the additional cases Plaintiff cites so
much as mentions Article III standing and Plaintiff provides no explanation regarding either case’s
supposed significance. See Dkt. No. 42 at 4 (citing McPherson v. Blacker, 146 U.S. 1, 27 (1892);

8

Although separate constitutional provisions, the Electors and Elections Clauses share
“considerable similarity” and should be interpreted in the same manner. Ariz. State Leg. v. Ariz.
Indep. Redistricting Comm’n, 576 U.S. 787, 839 (2015) (Roberts, C.J., dissenting); see also
Bognet, 2020 WL 6686120, at *7 (applying same test for standing under both Elections and
Electors Clauses).

1268

-14Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 39 Document 57

Bush v. Palm Beach Cnty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per curiam)).
No traceability. Mr. Feehan has also failed to allege facts sufficient to establish that any
supposed injury is traceable to Defendants. First, he alleges a “fraudulent scheme to rig the 2020
General Election.” Amend. Compl. ¶ 50. But there are no allegations in the Amended Complaint
that connect this alleged “fraudulent scheme” to Defendants. Instead, Plaintiff explicitly blames
other parties, including a technology company, see id. ¶ 98 (describing “clear motive on the part
of Dominion to rig the election”), and various unnamed foreign actors, see id. ¶ 70 (describing
“foreign interference by Iran and China”). Second, Plaintiff alleges that certain actions by the
WEC did not follow state law. Id. ¶¶ 40-41, 44-45. But other than Plaintiff’s generic complaint
that such supposed legal errors created an “avenue for fraudulent voting,” id. ¶ 38, there are no
allegations in the Amended Complaint showing that anything WEC allegedly did caused (or even
relates to) any alleged injury to Plaintiff himself. This lack of traceability dooms Mr. Feehan’s
standing to pursue any claims against the WEC. See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–
61 (1992). The same is true a fortiori of the individual Defendants, none of whom is alleged in
the Amended Complaint to have done anything in particular.
No redressability. Finally, as relief sought, Mr. Feehan attempts to bypass the popular
vote in Wisconsin by asking the Court to issue an injunction to prevent Governor Evers and the
WEC “from transmitting the currently certified electoral results [to] the Electoral College.”
Amend. Compl. ¶ 142(2). Doing so would not redress Mr. Feehan’s alleged injuries. As explained
earlier today in King v. Whitmer, which concerns nearly identical claims, “Plaintiffs’ alleged injury
does not entitle them to seek their requested remedy because the harm of having one’s vote
invalidated or diluted is not remedied by denying millions of others their right to vote.” Slip Op.
at 25, King, No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020) (Ex. 4). Not only that, granting the

1269

-15Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 39 Document 57

requested relief is impossible, because the Certificate of Ascertainment has already been
transmitted.

See

Nat’l

Archives,

https://www.archives.gov/electoral-college/2020.

2020

Electoral

College

Results,

No remedy Plaintiff seeks can make it

otherwise. See Wood v. Raffensperger, 2020 WL 7094866, *6 (“Because Georgia has already
certified its results, Wood’s requests to delay certification and commence a new recount are moot.
‘We cannot turn back the clock and create a world in which’ the 2020 election results are not
certified.”) (citation omitted).
In sum, Mr. Feehan meets none of the three requirements for Article III standing and this
Court should dismiss the Amended Complaint on that basis alone.
II.

The doctrine of laches bars Plaintiff’s claims.
Even if Mr. Feehan were able to establish that he has standing to pursue his claims (and,

for the reasons discussed above, he does not), the doctrine of laches independently bars any relief.
“Laches arises when an unwarranted delay in bringing a suit or otherwise pressing a claim
produces prejudice to the defendant.” Fulani v. Hogsett, 917 F.2d 1028, 1031 (7th Cir. 1990).
The doctrine applies with special force and urgency in the election-law context. A long line of
Seventh Circuit decisions emphasizes that election-law claims “must be brought ‘expeditiously’
… to afford the district court ‘sufficient time in advance of an election to rule without disruption
of the electoral cycle.’” Jones v. Markiewicz-Qualkinbush, 842 F.3d 1053, 1061 (7th Cir. 2016)
(citations omitted) (emphasis added); see also Bowes v. Indiana Secretary of State, 837 F.3d 813,
818 (7th Cir. 2016) (“plaintiffs in general must act quickly once they become aware of a
constitutional violation, so as not to disrupt an upcoming election process”); Nader v. Keith, 385
F.3d 729, 736 (7th Cir. 2004) (“It would be inequitable to order preliminary relief in a suit filed so
gratuitously late in the campaign season.”); Fulani, 917 F.2d at 1031 (denying relief where
plaintiffs’ delay risked “interfer[ing] with the rights of other Indiana citizens, in particular the

1270

-16Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 39 Document 57

absentee voters”); Navarro v. Neal, 904 F. Supp. 2d 812, 816 (N.D. Ill. 2012) (“By waiting so long
to bring this action, plaintiffs ‘created a situation in which any remedial order would throw the
state’s preparations for the election into turmoil.’”), aff’d, 716 F.3d 425 (7th Cir. 2013).
Through not using the term “laches,” the U.S. Supreme Court has long “insisted that
federal courts not change electoral rules close to an election date.” Democratic Nat’l Comm. v.
Bostelmann, 977 F.3d 639, 641-42 (7th Cir. 2020) (citing, inter alia, Purcell v. Gonzalez, 549
U.S. 1 (2006)), stay denied, No. 20A66, 2020 WL 6275871 (Oct. 26, 2020). Wisconsin law is in
accord. See Hawkins v. Wisconsin Elections Comm’n, 2020 WI 75, ¶¶ 9-10, 393 Wis. 2d 629,
948 N.W.2d 877 (2020) (rejecting petition for original action filed nearly three months before the
2020 general election where the Court concluded there was insufficient time to grant “any form
of relief that would be feasible,” and that granting relief would “completely upset[] the election,”
cause “confusion and disarray,” and “undermine confidence in the general election results”).
Overturning the results of an election after it has been held, as Mr. Feehan and his counsel seek
to accomplish, would create far more confusion, disarray, and loss of public confidence in the
results.
All of the elements of laches are satisfied here. Mr. Feehan and his counsel are guilty of
egregious delays. Many of the practices he challenges were in place long before November 3rd
and could have been readily challenged before the election. The WEC’s guidance, for example,
could have been challenged at any time before the election in a declaratory judgment action
under Wis. Stat. § 227.40(1). These “exclusive” review procedures could have been used to
present claims that the WEC’s guidance “exceeds the statutory authority of the agency,” id. §
227.40(4)(a), which is precisely what Mr. Feehan is claiming here. But Mr. Feehan and his

1271

-17Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 39 Document 57

counsel inexcusably waited nearly a full month after the election before bringing suit—and until
after Wisconsin had certified its presidential election results—to seek relief.
Nor is there any question that the DNC and its nominees, the public, and the administration
of justice in general would be deeply prejudiced if the Court excused Plaintiff’s delay in bringing
this suit.

Plaintiff’s requested relief would retroactively disenfranchise some, or all, of

Wisconsin’s voters after voting has concluded and would destroy confidence in the electoral
process. As explained earlier today in King v. Whitmer, the “rationale for interposing the doctrine
of laches is at its peak.”

Slip Op. at 19, No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020).

“Interference with impending elections is extraordinary, and interference with an election after
voting has begun is unprecedented.” Sw. Voter Registration Educ. Project v. Shelley, 344 F.3d
914, 919 (9th Cir. 2003) (citing Reynolds v. Sims, 377 U.S. 533, 585 (1964)). And as Justice
Hagedorn emphasized last week, interference with an election after it has concluded “would
appear to be unprecedented in American history.” Wisconsin Voters All., No. 2020AP1930-OA,
at 2 (Hagedorn, J., concurring) (Ex. 1). Plaintiff’s claims are barred by laches.
III.

The Eleventh Amendment bars Plaintiff’s claims.
In addition to the hurdles described above, the Eleventh Amendment also separately and

independently bars Mr. Feehan’s claims. The Eleventh Amendment prohibits federal courts from
granting “relief against state officials on the basis of state law, whether prospective or retroactive.”
Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 106 (1984); see also Dean Foods Co.
v. Brancel, 187 F.3d 609, 613 (7th Cir. 1999) (“[F]ederal courts cannot enjoin a state officer from
violating state law.”) This is true even when state law claims are styled as federal causes of action.
See Colon v. Schneider, 899 F.2d 660, 672 (7th Cir. 1990) (rejecting plaintiff’s attempt to
“transmute a violation of state law into a constitutional violation” and noting that such state law
claims would be barred by the Eleventh Amendment); see also, e.g., Massey v. Coon, No. 87-3768,

1272

-18Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 39 Document 57

1989 WL 884, at *2 (9th Cir. Jan. 3, 1989) (affirming dismissal where “on its face the complaint
states a claim under the due process and equal protection clauses of the Constitution, [but] these
constitutional claims are entirely based on the failure of defendants to conform to state law”);
Balsam v. Sec’y of State, 607 F. App’x 177, 183–84 (3d Cir. 2015) (Eleventh Amendment bars
state law claims even when “premised on violations of the federal Constitution”).
None of Mr. Feehan’s claims escapes this bar. In substance, he asks the Court to determine
that state officials violated state law and compel state officials to do what he believes Wisconsin
law requires. Count I, his purported Elections and Electors Clause claim, asserts that Defendants
violated the U.S. Constitution by exercising powers that are the province of the Wisconsin
Legislature. Amend. Compl. ¶ 103. While less than clear, Plaintiff’s allegation appears to be that
Defendants did so by violating the Wisconsin State Election Code. Id. ¶¶ 104–06. Count II,
Plaintiff’s purported Equal Protection Clause claim, alleges vote dilution because “Defendants
failed to comply with the requirements of the Wisconsin Election Code.” Id. ¶ 116. It also relies
on the assertion that Defendants violated “Plaintiff’s right to be present and have actual
observation and access to the electoral process ….” Id. ¶ 117. But there is no constitutional right
to poll watching or observation; any “right” to do so exists under state law. See, e.g., Donald J.
Trump for President, Inc. v. Boockvar, No. 20-cv-966, 2020 WL 5997680, at *67 (W.D. Pa. Oct.
10, 2020) (“[T]here is no individual constitutional right to serve as a poll watcher.” (quoting Pa.
Democratic Party v. Boockvar, No. 133 MM 2020, 2020 WL 5554644, at *30 (Pa. Sept. 17,
2020))). Count III, Plaintiff’s purported due process claim, also relies primarily on alleged
violations of Wisconsin law. See Amend. Compl. ¶ 129 (discussing “violations of the Wisconsin
Election Code”). Finally, Plaintiff’s free-standing “fraud” claim in Count IV is expressly based
on Defendants’ failure to comply with state election laws. Amend. Compl. ¶ 137 (alleging

1273

-19Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 39 Document 57

“defendants intentionally violated multiple provisions of the Wisconsin Election Code”).
Mr. Feehan’s motion only serves to underscore that his issues are truly state law claims
masquerading as the basis for a federal action. Once again, it asserts purported violations of
Wisconsin law. See Dkt. 19 at 3 (“Plaintiff is more likely to succeed on the merits of his claims
than not due to substantial and multiple violations of Wisconsin election laws . . . .”). Granting
Mr. Feehan’s request would be problematic for a host of reasons; one is that it would violate the
Eleventh Amendment. See Archie v. City of Racine, 847 F.2d 1211, 1217 (7th Cir. 1988) (“[T]o
treat a violation of state law as a violation of the Constitution is to make the federal government
the enforcer of state law. State rather than federal courts are the appropriate institutions to enforce
state rules.”); see also, e.g., Ohio Republican Party v. Brunner, 543 F.3d 357, 360-61 (6th Cir.
2008) (holding Pennhurst bars claim that Secretary of State violated state election law).
IV.

Principles of federalism and comity strongly favor abstention.
Even if the Court were to conclude that none of the above hurdles barred it from exercising

jurisdiction, principles of federalism and comity would still weigh strongly against doing so.
Plaintiff seeks an extraordinary intrusion on state sovereignty from which a federal court should
abstain under longstanding precedent.
Under the Pullman abstention doctrine, Mr. Feehan’s claims should be addressed, if at all,
in state court. See Railroad Comm’n v. Pullman Co., 312 U.S. 496, 501 (1941). The doctrine “is
based on considerations of comity and federalism and applies when ‘the resolution of a federal
constitutional question might be obviated if the state courts were given the opportunity to interpret
ambiguous state law.’” Wisconsin Right to Life State Political Action Comm. v. Barland, 664 F.3d
139, 150 (7th Cir. 2011) (quoting Quackenbush v. Allstate Ins. Co., 517 U.S. 706, 716-17 (1996)).
If a state law “is ‘fairly subject to an interpretation which will render unnecessary or substantially
modify the federal constitutional question,’ abstention may be required ‘in order to avoid

1274

-20Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 39 Document 57

unnecessary friction in federal-state relations, interference with important state functions, tentative
decisions on questions of state law, and premature constitutional adjudication.’” City Investing
Co. v. Simcox, 633 F.2d 56, 60 (7th Cir. 1980) (quoting Harman v. Forssenius, 380 U.S. 528, 53435 (1965)). The Seventh Circuit looks to two factors to determine whether Pullman abstention is
appropriate: whether there is (1) “a substantial uncertainty as to the meaning of the state law” and
(2) “a reasonable probability that the state court’s clarification of state law might obviate the need
for a federal constitutional ruling.” Wisconsin Right to Life, 664 F.3d at 150 (quoting Imt’l Coll.
of Surgeons v. City of Chi., 153 F.3d 356, 365 (7th Cir. 1998)). Each factor weighs in favor of
abstention here.
First, a central contention of the Amended Complaint is that official WEC guidance
misinterpreted the Wisconsin Election Code. Plaintiff alleges, among other things, legal errors by
WEC in relation to “indefinitely confined” voters, Amend. Compl. ¶¶ 37-42, 104, and missing
witness addresses on absentee-ballot envelopes, id. ¶¶ 43-45, 105-06; see also id. ¶ 137
(“Defendants intentionally violated multiple provisions of the Wisconsin Election Code ….”).
Plaintiff’s TRO motion echoes these state-law concerns. See Dkt. No. 10, ¶ 7. Accordingly,
adjudicating Plaintiff’s claims would require this Court to resolve alleged uncertainty about the
meaning of Wisconsin law. In fact, some of the same state law issues Plaintiff raises are currently
under consideration by the Wisconsin Supreme Court. See generally Jefferson v. Dane Cnty., No
2020AP557-OA (challenge to official interpretation of “indefinite confinement” provisions of
Wisconsin law). The “indefinite confinement” and “witness address” issues are both also being
litigated in the Wisconsin recount appeals. See generally Trump v. Biden, Milwaukee County Case
No. 2020-CV-7092; Dane County Case No. 2020-CV-2514. And recently, in dissenting from the
denial of an original action petition in which the Trump campaign raised similar challenges,

1275

-21Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 39 Document 57

Wisconsin’s Chief Justice described the petition as raising “significant legal issues that cry out for
resolution by the Wisconsin Supreme Court.” Trump v. Evers, No. 2020AP1971-OA (Wis. Dec.
3, 2020) (Roggensack, C.J., dissenting) (Ex. 2).
Second, it is at least “reasonably probable” that the Wisconsin courts’ adjudication of the
state law issues Mr. Feehan raises could “obviate the need for a federal constitutional ruling.”
Wisconsin Right to Life, 664 F.3d at 150. If, as the DNC submits would be proper, a Wisconsin
court rejected Mr. Feehan’s claim that WEC guidance violates state law, there would be no need
for this Court to opine about whether constitutional injury arose from such alleged violations.
Abstention is also warranted under the Colorado River doctrine, which provides that “a
federal suit,” in certain circumstances, “should yield to a parallel state suit.” DePuy Synthes Sales,
Inc. v. OrthoLA, Inc., 953 F.3d 469, 477 (7th Cir. 2020). Both conditions for abstention are met
here. First, there is a concurrent and parallel state-court action: President Trump’s appeal from the
WEC’s post-recount determinations in state court, which “involve[s] the same parties, the same
facts, and the same issues.” Id. at 478. Second, “the necessary exceptional circumstances exist to
support” abstention. Id. at 477. It is highly desirable to avoid “piecemeal” litigation of the issues
raised here, and the “source of governing law” is overwhelmingly Wisconsin election law. Id.
Moreover, the pending state-court action is not only “adequa[te] … to protect [Plaintiff’s] rights,”
but also the “exclusive judicial remedy” under Wisconsin law “for testing the right to hold an
elective office as the result of an alleged irregularity, defect or mistake committed during the voting
or canvassing process.” Wis. Stat. § 9.01(11). Just today, a federal court in Michigan, considering
identical claims, found Colorado River abstention appropriate. See Slip Op. at 20-23, King v.
Whitmer, No. 2:20-cv-13134, (E.D. Mich. Dec. 7, 2020).

1276

-22Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 39 Document 57

Finally, even if the Court were to conclude that this case falls outside the scope of Pullman,
Colorado River, and other abstention doctrines, the DNC respectfully submits that the Court
should nonetheless abstain because the case “implicates the principles of equity, comity, and
federalism” that lie at the foundation of those doctrines. SKS & Assocs., Inc. v. Dart, 619 F.3d
674, 677 (7th Cir. 2010). The conduct of elections is uniquely constitutionally entrusted to the
states. See U.S. Const. art. I, § 4; id. art. II, § 1, cl. 2. There are few areas where a federal court
should tread more lightly. See Rucho v. Common Cause, 139 S. Ct. 2484, 2506-07 (2019).
Moreover, as Plaintiff himself notes, “Wisconsin law allows elections to be contested
through litigation,” Amend. Compl. ¶ 121—litigation that President Trump is already pursuing in
state court, as noted above. That litigation raises many of the same concerns Mr. Feehan raises,
so he can hardly claim there is no alternative to federal-court adjudication. To the contrary,
“principles of equity, comity, and federalism,” SKS & Assocs., 619 F.3d at 677, support abstaining
from federal adjudication and instead allowing the post-recount litigation already initiated in state
court by President Trump to proceed.
V.

Plaintiff fails to state a claim on which relief can be granted.
The Amended Complaint is also subject to dismissal under Rule 12(b)(6), which requires

a plaintiff to allege “enough facts to state a claim to relief that is plausible on its face.” Twombly,
550 U.S. at 570. While Rule 8 “does not require ‘detailed factual allegations,’ … it demands more
than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Twombly, 550 U.S. at 555). The shortcomings in the Amended
Complaint are particularly stark because Plaintiff’s claims sound in fraud and thus are subject to
the requirement of Rule 9(b) to “state with particularity the circumstances constituting fraud or
mistake.” Fed. R. Civ. P. 9(b). The Supreme Court has also instructed that “[d]etermining whether

1277

-23Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 39 Document 57

a complaint states a plausible claim for relief” is “a context-specific task that requires the reviewing
court to draw on its judicial experience and common sense.” Iqbal, 556 U.S. at 679.
Mr. Feehan fails to meet the standards of Rule 8, much less Rule 9(b). He speculates that
Wisconsin election officials and “the State of Wisconsin” engaged in “widespread fraud” to
manipulate the election results, supposedly in cahoots with domestic and international actors.
Amend. Compl. ¶ 48. He asserts that local election officials helped advance a “multi-state
fraudulent scheme to rig the 2020 General Election,” id. ¶ 50, by using voting machines made by
Dominion, id. ¶ 3, a company allegedly created exclusively to ensure election-rigging so that
“Venezuelan dictator Hugo Chavez never lost another election,” id. ¶ 7, while also permitting Iran
and China to manipulate the 2020 general election to ensure President-elect Biden’s victory, id. ¶
16, and intentionally enabling mass voter fraud among mail-in voters, id. ¶¶ 46, 48.
Plainly, judicial experience and common sense alone dictate that the Amended Complaint
should be dismissed. “[T]he sheer size of the alleged conspiracy—involving numerous agencies
of state and local government—points in the direction of paranoid fantasy” rather than plausible
allegations grounded in fact. Walton v. Walker, 364 F. App’x 256, 257 (7th Cir. 2010) (internal
quotation marks omitted). But Mr. Feehan also has failed to state cognizable legal claims. His
Elections and Electors Clause claims as alleged in Count I of the Amended Complaint do not state
a claim for relief. The Elections and Electors Clauses vest authority in “the Legislature” of each
state to regulate “[t]he Times, Places, and Manner of holding Elections for Senators and
Representatives,” U.S. Const. art. I, § 4, cl. 1, and to direct the selection of presidential electors,
U.S. Const. art. II, § 1, cl. 2, respectively. Plaintiff’s putative claims under the Elections and
Electors Clauses appear to be grounded on his allegation that Defendants failed to follow state law.
Amend. Compl. ¶¶ 104–06. Plaintiff, however, fails to tie these allegations to the Electors and

1278

-24Case 2:20-cv-01771-PP Filed 12/07/20 Page 32 of 39 Document 57

Elections Clauses. He has not explained how alleged deviations from state election procedures
constitutes a violation of either constitutional provision. See, e.g., Slip Op. at 30, King v. Whitmer,
No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020) (“Even assuming Defendants did not follow the
Michigan Election Code, Plaintiffs do not explain how or why such violations of state election
procedures automatically amount to violations of the clauses.”). Nowhere does he allege that
Defendants or state laws violate the authority of the Legislature to direct selection of the
presidential electors, U.S. Const. art. II, § 1, cl. 2, or regulate elections, id. art. I, § 4, cl. 1.
Count II, Plaintiff’s putative Equal Protection claim, similarly fails as a matter of law. Mr.
Feehan alleges that “Defendants failed to comply with the requirements of Wisconsin Election
Code and thereby diluted the lawful ballots of the Plaintiff and of other Wisconsin voters ….”
Amend. Compl. ¶ 116. That is not a cognizable equal protection injury. Vote dilution may give
rise to a federal claim only in certain contexts, such as when laws structurally devalue one
community’s votes over another’s. See, e.g., Bognet, 2020 WL 6686120, at *11 (“[V]ote dilution
under the Equal Protection Clause is concerned with votes being weighed differently.”). Courts
have repeatedly found the “conceptualization of vote dilution” that Mr. Feehan urges here—that
is, “state actors counting ballots in violation of state election law”—is not a cognizable violation
of equal protection. Id. For good reason: “if dilution of lawfully cast ballots by the ‘unlawful’
counting of invalidly cast ballots ‘were a true equal-protection problem, then it would transform
every violation of state election law … into a potential federal equal-protection claim.’” Id.
(quoting Boockvar, 2020 WL 5997680, at *45-46); see also Slip Op. at 34 n.11, King v. Whitmer,
No. 2:20-cv-13134 (E.D. Mich. Dec. 7, 2020) (same) (Ex. 4).9

9

Mr. Feehan’s allegation that Defendants “enacted regulations, or issued guidance, that
had the intent and effect of favoring one class of voters—Democratic absentee voters—over

1279

-25Case 2:20-cv-01771-PP Filed 12/07/20 Page 33 of 39 Document 57

Count III also fails. Mr. Feehan appears to allege that violations of law diluted his vote in
violation of the Due Process Clause. See Amend. Compl. ¶¶ 128-29. As noted, Mr. Feehan has
failed to plead a cognizable vote-dilution claim, but regardless, vote dilution is a context-specific
theory of constitutional harm premised on the Equal Protection Clause, not the Due Process
Clause. And even if this Court construed Mr. Feehan’s allegations as attempting to state a
substantive due process claim, they would still fall short, because “section 1983 does not cover
garden variety election irregularities.” Bodine v. Elkhart Cnty. Election Bd., 788 F.2d 1270, 1272
(7th Cir. 1986) (characterizing Griffin v. Burns, 570 F.2d 1065, 1076 (1st Cir. 1978)); see also
Kasper v. Hayes, 651 F. Supp. 1311, 1314 (N.D. Ill. 1987) (“The Constitution is not an election
fraud statute, … [and] ‘[i]t is not every election irregularity … which will give rise to a
constitutional claim and an action under section 1983’.” (quoting Bodine, 788 F.2d at 1271)), aff’d
sub nom. Kasper v. Bd. of Election Comm’rs, 810 F.2d 1167 (7th Cir. 1987). Instead, to “strike
down an election on substantive due process grounds,” two elements must be met: “(1) likely
reliance by voters on an established election procedure and/or official pronouncements about what
the procedure will be in the coming election; and (2) significant disenfranchisement that results
from a change in the election procedures.” Bennett v. Yoshina, 140 F.3d 1218, 1226-27 (9th Cir.
1998); see also Curry v. Baker, 802 F.2d 1302, 1315 (11th Cir. 1986) (to implicate due process,
problems must “go well beyond the ordinary dispute over the counting and marking of ballots”)
(internal quotation marks omitted). Plaintiff’s allegations here fall far short. Indeed, he does not

Republican voters” (Amend. Compl. ¶ 116) also does not state a viable equal protection claim,
because the guidance at issue applied equally to all absentee voters. See Boockvar, 2020 WL
5997680, at *60 (absentee ballot guidance did not violate Equal Protection Clause because “[i]t
was issued to all counties and applies equally to all counties, and by extension, voters.”); Bognet,
2020 WL 6686120, at *14 (rejecting plaintiffs’ proposed absentee voter groupings under Equal
Protection Clause because “there is simply no differential weighing of the votes.”).

1280

-26Case 2:20-cv-01771-PP Filed 12/07/20 Page 34 of 39 Document 57

plausibly allege that any disenfranchisement has occurred, but rather asks the Court to negate the
votes cast by millions of eligible Wisconsin voters.
VI.

Plaintiff is not entitled to a TRO or preliminary injunction.
For the reasons discussed above, Mr. Feehan cannot establish a “likelihood of success on

the merits.” Tully, 977 F.3d at 612-13. He has failed to carry his burden on any of the remaining
factors necessary to entitle him to preliminary relief, much less the extraordinary and
unprecedented relief he seeks. No court has ever done what Feehan asks this Court to do—throw
out the election results and ordain the losing candidate the victor by judicial proclamation. As the
Third Circuit put it recently when the Trump Campaign sought an order prohibiting Pennsylvania’s
officials from certifying election results, such relief—“throwing out millions of votes—is
unprecedented” and a “drastic remedy.” Donald J. Trump for President, Inc. 2020 WL 7012522,
at *7. “Voters, not lawyers, choose the President. Ballots, not briefs, decide elections.” Id *9.
A.

Plaintiff cannot establish irreparable harm and has an adequate remedy at
law.

Mr. Feehan has not shown injury or a likelihood of success of the merits of his
constitutional claims. So, his assertion that he will suffer irreparable harm based on those
violations is unfounded. Further, his delay before seeking relief weighs against the probability of
irreparable injury. See Ty, Inc. v. Jones Grp., Inc., 237 F.3d 891, 903 (7th Cir. 2001); see also
Wright & Miller, 11A Federal Practice and Procedure, § 2948.1 (3d ed., Apr. 2017 update) (“A
long delay by plaintiff after learning of the threatened harm also may be taken as an indication that
the harm would not be serious enough to justify a preliminary injunction.”). Mr. Feehan’s alleged
injuries occurred (if they occurred at all), on or before election day. Yet he waited until nearly
four weeks after election day, after the election had been certified, to file this motion. This Court
should consider his inexcusable delay in determining whether he is entitled to “emergency” relief.

1281

-27Case 2:20-cv-01771-PP Filed 12/07/20 Page 35 of 39 Document 57

Mr. Feehan also has an adequate remedy at law, weighing against a finding of irreparable
harm. See United States v. Rural Elec. Convenience Co-op. Co., 922 F.2d 429, 432 (7th Cir. 1991)
(“It is well settled that the availability of an adequate remedy at law renders injunctive relief
inappropriate.”). In this case, Wisconsin law allows for mechanisms to dispute election results.
Because Feehan could engage these mechanisms, he has an adequate remedy at law. See, e.g.,
Donald J. Trump for President, Inc. v. Pennsylvania, 2020 WL 7012522, at *8 (“Because the
Campaign can raise these issues and seek relief through state courts and then the U.S. Supreme
Court, any harm may not be irreparable.”); see also Rural Elec. Convenience Co-op. Co., 922 F.2d
at 432 (observing that “a party’s ability to assert its claims as a defense in another proceeding
constitutes an adequate remedy at law”).
B.

The balance of equities and public interest weigh heavily against the issuance
of a restraining order or injunction.

The balance of equities and public interest cut sharply against granting injunctive relief.
Plaintiff’s request that this Court order Defendants “to de-certify the results of the General Election
for the Office of President” and “certify the results … in favor of President Donald Trump,” would
wreak havoc on Wisconsin’s elections processes and violate the constitutional rights of millions
of Wisconsinites, all while undermining public confidence and trust in the election’s results. See
United States v. Classic, 313 U.S. 299, 315 (1941) (“Obviously included within the right to choose,
secured by the Constitution, is the right of qualified voters within a state to cast their ballots and
have them counted ….”); Shipley v. Chi. Bd. of Election Comm’rs, 947 F.3d 1056, 1061 (7th Cir.
2020) (“It is undeniable that the right to vote is a fundamental right guaranteed by the Constitution.
The right to vote is not just the right to put a ballot in a box but also the right to have one's vote
counted.” (citations omitted)).
For these reasons, in the past several weeks, courts have rightly refused to issue similar

1282

-28Case 2:20-cv-01771-PP Filed 12/07/20 Page 36 of 39 Document 57

injunctions. See Donald J. Trump for President, Inc., 2020 WL 7012522, at *8–9 (construing
Trump Campaign’s request to enjoin Pennsylvania’s certification of results as a request to
disenfranchise voters, and refusing to do so); Wood v. Raffensperger, No. 1:20-cv-04561-SDG,
2020 WL 6817513 at *13 (N.D. Ga. Nov. 20, 2020) (denying request to enjoin Georgia from
certifying its election results, concluding that “interfer[ing] with the result of an election that has
already concluded would be unprecedented and harm the public in countless ways”), aff’d, No.
20-14418, 2020 WL 7094866 (11th Cir. Dec. 5, 2020). This Court should do the same.
CONCLUSION
For the foregoing reasons, amicus curiae DNC respectfully requests that the Court deny
Plaintiff’s Amended Motion for Temporary Restraining Order and Preliminary Injunction in its
entirety.

1283

-29Case 2:20-cv-01771-PP Filed 12/07/20 Page 37 of 39 Document 57

DATED: December 7, 2020

Seth P. Waxman*
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
David S. Lesser
Jamie Dycus
Christopher Bouchoux*
Joseph J. Yu*
Charles Bridge*
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com
jamie.dycus@wilmerhale.com
christopher.bouchoux@wilmerhale.com
joseph.yu@wilmerhale.com
charles.bridge@wilmerhale.com
Matthew W. O’Neill
SBN 1019269
FOX, O’NEILL &
SHANNON, S.C.
622 North Water Street,
Suite 500
Milwaukee, WI 53202
(414) 273-3939
mwoneill@foslaw.com

Respectfully Submitted,
s/ Michelle M. Umberger
Charles G. Curtis, Jr.
SBN 1013075
Michelle M. Umberger
SBN 1023801
Sopen B. Shah
SBN 1105013
Will M. Conley
SBN 1104680
PERKINS COIE LLP
One East Main St., Suite 201
Madison, WI 53703
(608) 663-7460
ccurtis@perkinscoie.com
mumberger@perkinscoie.com
sshah@perkinscoie.com
wconley@perkinscoie.com
Marc E. Elias*
John Devaney
Zachary J. Newkirk*
PERKINS COIE LLP
700 Thirteenth St., N.W.,
Suite 800
Washington, D.C. 20005
(202) 654-6200
melias@perkinscoie.com
jdevaney@perkinscoie.com
znewkirk@perkinscoie.com
Counsel for Proposed Respondent-Intervenor

* Admission pending

1284

-30Case 2:20-cv-01771-PP Filed 12/07/20 Page 38 of 39 Document 57

CERTIFICATE OF SERVICE
I hereby certify that on Monday, December 7, 2020, I filed a copy of the foregoing with
the Clerk of the Court using the CM/ECF system, which will send notification of such filing to
all counsel of record.
/s/ Michelle M. Umberger
Counsel for Proposed Intervenor

1285

-31Case 2:20-cv-01771-PP Filed 12/07/20 Page 39 of 39 Document 57

Exhibit 1

1286

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 57-1

OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 4, 2020

To:
Gregory M. Erickson
Erick G. Kaardal
Mohrmann, Kaardal and Erickson
150 S. 5th Street, Suite 3100
Minneapolis, MN 55414
Colin T. Roth
Thomas C. Bellavia
Colin R. Stroud
Brian P. Keenan
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857

Brian S. Levy
Katten & Temple
11512 N. Port Washington Road, Suite 101J
Mequon, WI 53092
Joseph S. Goode
Mark M. Leitner
John W. Halpin
Allison E. Laffey
Laffey, Leitner & Goode LLC
325 E. Chicago Street, Suite 200
Milwaukee, WI 53202
*Address list continued on page 5.

You are hereby notified that the Court has entered the following order:
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70 and
a supplement thereto, a supporting legal memorandum, and supporting expert reports have been
filed on behalf of petitioners, Wisconsin Voters Alliance, et al. A response to the petition has been
filed by respondents, Wisconsin Elections Commission, Ann S. Jacobs, Mark L. Thomsen, Marge
Bostelman, Julie M. Glancey, Dean Knudsen, and Robert F. Spindell, and a separate response has
been filed by respondent Governor Tony Evers. Amicus briefs regarding the issue of whether to
grant leave to commence an original action have been filed by (1) Christine Todd Whitman, et al;
(2) the City of Milwaukee; (3) Wisconsin State Conference NAACP, et al.; and (4) the Center for
Tech and Civic Life. In addition, a motion to intervene has been filed by proposed intervenorrespondent, Democratic National Committee.
After considering all of the filings, we conclude that this petition does not satisfy our
standards for granting leave to commence an original action. Although the petition raises time-

1287

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 7 Document 57-1

Page 2
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

sensitive questions of statewide significance, “issues of material fact [would] prevent the court
from addressing the legal issues presented.” State ex rel. Ozanne v. Fitzgerald, 2011 WI 43, ¶19,
334 Wis. 2d 70, 798 N.W.2d 436 (Prosser, J., concurring). It is therefore not an appropriate case
in which to exercise our original jurisdiction. Accordingly,
IT IS ORDERED that the petition for leave to commence an original action is denied; and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.
BRIAN HAGEDORN, J., (concurring). The Wisconsin Voters Alliance and a group of
Wisconsin voters bring a petition for an original action raising a variety of questions about the
operation of the November 3, 2020 presidential election. Some of these legal issues may, under
other circumstances, be subject to further judicial consideration. But the real stunner here is the
sought-after remedy. We are invited to invalidate the entire presidential election in Wisconsin by
declaring it “null”—yes, the whole thing. And there’s more. We should, we are told, enjoin the
Wisconsin Elections Commission from certifying the election so that Wisconsin’s presidential
electors can be chosen by the legislature instead, and then compel the Governor to certify those
electors. At least no one can accuse the petitioners of timidity.
Such a move would appear to be unprecedented in American history. One might expect
that this solemn request would be paired with evidence of serious errors tied to a substantial and
demonstrated set of illegal votes. Instead, the evidentiary support rests almost entirely on the
unsworn expert report1 of a former campaign employee that offers statistical estimates based on
call center samples and social media research.
This petition falls far short of the kind of compelling evidence and legal support we would
undoubtedly need to countenance the court-ordered disenfranchisement of every Wisconsin voter.
The petition does not even justify the exercise of our original jurisdiction.
As an initial matter, the Wisconsin Supreme Court is not a fact-finding tribunal. Yet the
petition depends upon disputed factual claims. In other words, we couldn’t just accept one side’s
description of the facts or one side’s expert report even if we were inclined to believe them.2 That
alone means this case is not well-suited for an original action. The petition’s legal support is no
less wanting. For example, it does not explain why its challenge to various election processes
1

After filing their petition for original action, the Petitioners submitted a second expert
report. But the second report only provides additional computations based on the assumptions and
calculations in the initial expert report.
2

The Attorney General and Governor offer legitimate arguments that this report would not
even be admissible evidence under Wis. Stat. § 907.02 (2017-18).
All subsequent references to the Wisconsin Statutes are to the 2017-18 version.

1288

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 7 Document 57-1

Page 3
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

comes after the election, and not before. Nor does it grapple with how voiding the presidential
election results would impact every other race on the ballot, or consider the import of election
statutes that may provide the “exclusive remedy.”3 These are just a few of the glaring flaws that
render the petition woefully deficient. I therefore join the court’s order denying the original action.
Nonetheless, I feel compelled to share a further observation. Something far more
fundamental than the winner of Wisconsin’s electoral votes is implicated in this case. At stake, in
some measure, is faith in our system of free and fair elections, a feature central to the enduring
strength of our constitutional republic. It can be easy to blithely move on to the next case with a
petition so obviously lacking, but this is sobering. The relief being sought by the petitioners is the
most dramatic invocation of judicial power I have ever seen. Judicial acquiescence to such
entreaties built on so flimsy a foundation would do indelible damage to every future election. Once
the door is opened to judicial invalidation of presidential election results, it will be awfully hard to
close that door again. This is a dangerous path we are being asked to tread. The loss of public
trust in our constitutional order resulting from the exercise of this kind of judicial power would be
incalculable.
I do not mean to suggest this court should look the other way no matter what. But if there
is a sufficient basis to invalidate an election, it must be established with evidence and arguments
commensurate with the scale of the claims and the relief sought. These petitioners have come
nowhere close. While the rough and tumble world of electoral politics may be the prism through
which many view this litigation, it cannot be so for us. In these hallowed halls, the law must rule.
Our disposal of this case should not be understood as a determination or comment on the
merits of the underlying legal issues; judicial review of certain Wisconsin election practices may
be appropriate. But this petition does not merit further consideration by this court, much less grant
us a license to invalidate every single vote cast in Wisconsin’s 2020 presidential election.
I am authorized to state that Justices ANN WALSH BRADLEY, REBECCA FRANK
DALLET, and JILL J. KAROFSKY join this concurrence.
ROGGENSACK, C.J. (dissenting). It is critical that voting in Wisconsin elections not
only be fair, but that the public also perceives voting as having been fairly conducted.
This is the third time that a case filed in this court raised allegations about purely legal
questions that concern Wisconsin Elections Commission (WEC) conduct during the November 3,

3

See Wis. Stat. § 9.01(11) (providing that § 9.01 “constitutes the exclusive judicial remedy
for testing the right to hold an elective office as the result of an alleged irregularity, defect or
mistake committed during the voting or canvassing process”); Wis. Stat. § 5.05(2m)(k) (describing
“[t]he commission’s power to initiate civil actions” under § 5.05(2m) as the “exclusive remedy for
alleged civil violations of chs. 5 to 10 or 12”).

1289

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 7 Document 57-1

Page 4
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

2020, presidential election.4 This is the third time that a majority of this court has turned its back
on pleas from the public to address a matter of statewide concern that requires a declaration of
what the statutes require for absentee voting. I dissent and write separately because I have
concluded that the court has not meet its institutional responsibilities by repeatedly refusing to
address legal issues presented in all three cases.
I agree with Justice Hagedorn that we are not a circuit court, and therefore, generally, we
do not take cases for which fact-finding is required. Green for Wisconsin v. State Elections Bd.,
2006 WI 120, 297 Wis. 2d 300, 301, 723 N.W.2d 418. However, when the legal issue that we
wish to address requires it, we have taken cases that do require factual development, referring any
necessary factual determinations to a referee or to a circuit court. State ex rel. LeFebre v. Israel,
109 Wis. 2d 337, 339, 325 N.W.2d 899 (1982); State ex rel White v. Gray, 58 Wis. 2d 285, 286,
206 N.W.163 (1973).
We also have taken cases where the issues we wish to address are purely legal questions
for which no factual development is required in order to state what the law requires. Wisconsin
Legislature v. Palm, 2020 WI 42, 391 Wis. 2d 497, 942 N.W.2d 900. The statutory authority of
WEC is a purely legal question. There is no factual development required for us to declare what
the law requires in absentee voting.
Justice Hagedorn is concerned about some of the relief that Petitioners request. He begins
his concurrence saying, "the real stunner here is the sought after remedy." He next relates, "The
relief being sought by the petitioners is the most dramatic invocation of judicial power I have ever
seen." Then, he concludes with, "this petition does not merit further consideration by this court,
much less grant us a license to invalidate every single vote cast in Wisconsin’s 2020 presidential
election."5
Those are scary thoughts, but Justice Hagedorn has the cart before the horse in regard to
our consideration of this petition for an original action. We grant petitions to exercise our
jurisdiction based on whether the legal issues presented are of state wide concern, not based on the
remedies requested. Petition of Heil, 230 Wis. 428, 284 N.W.42 (1938).
Granting a petition does not carry with it the court's view that the remedy sought is
appropriate for the legal issues raised. Historically, we often do not provide all the relief requested.
Bartlett v. Evers, 2020 WI 68, ¶9, 393 Wis. 2d 172, 945 N.W.2d 685 (upholding some but not all
partial vetoes). There have been occasions when we have provided none of the relief requested by
the petitioner, but nevertheless declared the law. See Sands v. Menard, Inc., 2010 WI 96, ¶46, 328
Wis. 2d 647, 787 N.W.2d 384 (concluding that while reinstatement is the preferred remedy under
4

Trump v. Evers, No. 2020AP1971-OA, unpublished order (Wis. S. Ct. Dec. 3, 2020);
Mueller v. WEC, No. 2020AP1958-OA, unpublished order (Wis. S. Ct. Dec. 3, 2020) and
Wisconsin Voters Alliance v. WEC, No. 2020AP193-OA.
5

Justice Hagedorn forgets to mention that one form of relief sought by Petitioners is, "Any
other relief the Court deems appropriate."

1290

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 7 Document 57-1

Page 5
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

Title VII, it is an equitable remedy that may or may not be appropriate); Coleman v. Percy, 96
Wis. 2d 578, 588-89, 292 N.W.2d 615 (1980) (concluding that the remedy Coleman sought was
precluded).
We have broad subject matter jurisdiction that enables us to grant the petition for original
action pending before us. Our jurisdiction is grounded in the Wisconsin Constitution. Wis. Const.,
art. VII, Section 3(2); City of Eau Claire v. Booth, 2016 WI 65, ¶7, 370 Wis. 2d 595, 882 N.W.2d
738.
I dissent because I would grant the petition and address the people of Wisconsin's concerns
about whether WEC's conduct during the 2020 presidential election violated Wisconsin statutes.
As I said as I began, it is critical that voting in Wisconsin elections not only be fair, but that the
public also perceives voting as having been fairly conducted. The Wisconsin Supreme Court
should not walk away from its constitutional obligation to the people of Wisconsin for a third time.
I am authorized to state that Justices ANNETTE KINGSLAND ZIEGLER and REBECCA
GRASSL BRADLEY join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Tearman Spencer
Mary L. Schanning
Scott F. Brown
Kathryn Z. Block
Patrick J. McClain
Tyrone M. St. Junior
James M. Carroll
Milwaukee City Attorney's Office
200 East Wells Street
800 City Hall
Milwaukee, WI 53202
Kendall W. Harrison
Mike B. Wittenwyler
Godfrey & Kahn
1 E. Main St., Ste 500
P.O. Box 2719
Madison, WI 53701-2719

1291

Jeffrey A. Mandell
Rachel E. Snyder
Stafford Rosenbaum LLP
222 W. Washington Avenue
Post Office Box 1784
Madison, WI 53701
Charles G. Curtis, Jr.
Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Ste. 201
Madison, WI 53703
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street Suite 500
Milwaukee, WI 53202

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 7 Document 57-1

Page 6
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

Joshua Matz
Harmann Singh
350 Fifth Avenue, Suite 7110
New York, NY 10118
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
Susman Godfrey LLP
1000 Louisiana Street
Suite 5100
Houston, TX 77002
Paul Smith
Campaign Legal Center
1101 14th Street NW, Suite 400
Washington, DC 20005

1292

David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
Marc E. Elias
John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 7 Document 57-1

Exhibit 2

1293 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 11 Document 57-2

OFFICE OF THE CLERK

110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 3, 2020

To:
R. George Burnett
Conway, Olejniczak & Jerry, SC
P.O. Box 23200
Green Bay, WI 54305-3200
James R. Troupis
Troupis Law Office, LLC
4126 Timber Lane
Cross Plains, WI 53528
Margaret C. Daun
Milwaukee County Corporation Counsel
901 N. 9th Street, Room 303
Milwaukee, WI 53233

Joshua L. Kaul
Thomas C. Bellavia
Colin T. Roth
Colin R. Stroud
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
David R. Gault
Assistant Corporation Counsel
Office of the Dane County Corporation
Counsel
210 Martin Luther King, Jr. Blvd., Room 419
Madison, WI 53703-3345
*Address list continued on page 9.

You are hereby notified that the Court has entered the following order:
No. 2020AP1971-OA

Trump v. Evers

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70, a
supporting legal memorandum, and an appendix have been filed on behalf of petitioners, Donald
J. Trump, et al. Responses to the petition have been filed by (1) Governor Tony Evers; (2) the
Wisconsin Elections Commission and its Chair, Ann S. Jacobs; (3) Scott McDonell, Dane County
Clerk, and Alan A. Arnsten and Joyce Waldrop, members of the Dane County Board of
Canvassers; and (4) George L. Christensen, Milwaukee County Clerk, and Timothy H. Posnanski,
Richard Baas, and Dawn Martin, members of the Milwaukee County Board of Canvassers. A nonparty brief in support of the petition has been filed by the Liberty Justice Center. A motion to
intervene, a proposed response of proposed respondents-intervenors, and an appendix have been
filed by the Democratic National Committee (DNC) and Margaret J. Andrietsch, Sheila Stubbs,

1294 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 11 Document 57-2

Page 2
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

Ronald Martin, Mandela Barnes, Khary Penebaker, Mary Arnold, Patty Schachtner, Shannon
Holsey, and Benjamin Wikler (collectively, “the Biden electors”). The court having considered
all of the filings,
IT IS ORDERED that the petition for leave to commence an original action is denied. One
or more appeals from the determination(s) of one or more boards of canvassers or from the
determination of the chairperson of the Wisconsin Elections Commission may be filed by an
aggrieved candidate in circuit court. Wis. Stat. § 9.01(6); and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.
BRIAN HAGEDORN, J. (concurring). I understand the impulse to immediately address
the legal questions presented by this petition to ensure the recently completed election was
conducted in accordance with the law. But challenges to election results are also governed by law.
All parties seem to agree that Wis. Stat. § 9.01 (2017–18)1 constitutes the “exclusive judicial
remedy” applicable to this claim. § 9.01(11). After all, that is what the statute says. This section
provides that these actions should be filed in the circuit court, and spells out detailed procedures
for ensuring their orderly and swift disposition. See § 9.01(6)–(8). Following this law is not
disregarding our duty, as some of my colleagues suggest. It is following the law.
Even if this court has constitutional authority to hear the case straightaway,
notwithstanding the statutory text, the briefing reveals important factual disputes that are best
managed by a circuit court.2 The parties clearly disagree on some basic factual issues, supported
at times by competing affidavits. I do not know how we could address all the legal issues raised
in the petition without sorting through these matters, a task we are neither well-positioned nor
institutionally designed to do. The statutory process assigns this responsibility to the circuit court.
Wis. Stat. § 9.01(8)(b) (“The [circuit] court shall separately treat disputed issues of procedure,
interpretations of law, and findings of fact.”).
We do well as a judicial body to abide by time-tested judicial norms, even—and maybe
especially—in high-profile cases. Following the law governing challenges to election results is no
threat to the rule of law. I join the court’s denial of the petition for original action so that the
petitioners may promptly exercise their right to pursue these claims in the manner prescribed by
the legislature.

1

All subsequent references to the Wisconsin Statutes are to the 2017–18 version.

2

The legislature generally can and does set deadlines and define procedures that
circumscribe a court’s competence to act in a given case. Village of Trempealeau v. Mikrut, 2004
WI 79, ¶9–10, 273 Wis. 2d 76, 681 N.W.2d 190. The constitution would obviously override these
legislative choices where the two conflict.

1295 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 11 Document 57-2

Page 3
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

PATIENCE DRAKE ROGGENSACK, C.J. (dissenting). Before us is an emergency
petition for leave to commence an original action brought by President Trump, Vice President
Pence and Donald Trump for President, Inc., against Governor Evers, the Wisconsin Elections
Commission (WEC), its members and members of both the Milwaukee County Board of
Canvassers and the Dane County Board of Canvassers. The Petitioners allege that the WEC and
election officials caused voters to violate various statutes in conducting Wisconsin's recent
presidential election. The Petitioners raised their concerns during recount proceedings in Dane
County and Milwaukee County. Their objections were overruled in both counties.
The Respondents argue, in part, that we lack subject matter jurisdiction because of the
"exclusive judicial remedy" provision found in Wis. Stat. § 9.01(11) (2017-18).3 Alternatively,
the Respondents assert that we should deny this petition because fact-finding is required, and we
are not a fact-finding tribunal.
I conclude that we have subject matter jurisdiction that enables us to grant the petition for
original action pending before us. Our jurisdiction arises from the Wisconsin Constitution and
cannot be impeded by statute. Wis. Const., art. VII, Section 3(2); City of Eau Claire v. Booth,
2016 WI 65, ¶7, 370 Wis. 2d 595, 882 N.W.2d 738. Furthermore, time is of the essence.
However, fact-finding may be central to our evaluation of some of the questions presented.
I agree that the circuit court should examine the record presented during the canvasses to make
factual findings where legal challenges to the vote turn on questions of fact. However, I dissent
because I would grant the petition for original action, refer for necessary factual findings to the
circuit court, who would then report its factual findings to us, and we would decide the important
legal questions presented.
I also write separately to emphasize that by denying this petition, and requiring both the
factual questions and legal questions be resolved first by a circuit court, four justices of this court
are ignoring that there are significant time constraints that may preclude our deciding significant
legal issues that cry out for resolution by the Wisconsin Supreme Court.
I. DISCUSSION
The Petitioners set out four categories of absentee votes that they allege should not have
been counted because they were not lawfully cast: (1) votes cast during the 14-day period for inperson absentee voting at a clerk's office with what are alleged to be insufficient written requests
for absentee ballots, pursuant to Wis. Stat. § 6.86(1)(b); (2) votes cast when a clerk has completed
information missing from the ballot envelope, contrary to Wis. Stat. § 6.87(6d); (3) votes cast by
those who obtained an absentee ballot after March 25, 2020 by alleging that they were indefinitely

3

All subsequent references to the Wisconsin Statutes are to the 2017–18 version.

1296 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 11 Document 57-2

Page 4
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

confined; and (4) votes cast in Madison at "Democracy in the Park" events on September 26 and
October 3, in advance of the 14-day period before the election, contrary to Wis. Stat. § 6.87.
Some of the Respondents have asserted that WEC has been advising clerks to add missing
information to ballot envelopes for years, so the voters should not be punished for following
WEC's advice. They make similar claims for the collection of votes more than 14 days before the
November 3 election.
If WEC has been giving advice contrary to statute, those acts do not make the advice lawful.
WEC must follow the law. We, as the law declaring court, owe it to the public to declare whether
WEC's advice is incorrect. However, doing so does not necessarily lead to striking absentee ballots
that were cast by following incorrect WEC advice. The remedy Petitioners seek may be out of
reach for a number of reasons.
Procedures by which Wisconsin elections are conducted must be fair to all voters. This is
an important election, but it is not the last election in which WEC will be giving advice. If we do
not shoulder our responsibilities, we leave future elections to flounder and potentially result in the
public's perception that Wisconsin elections are unfair. The Wisconsin Supreme Court can uphold
elections by examining the procedures for which complaint was made here and explaining to all
where the WEC was correct and where it was not.
I also am concerned that the public will misunderstand what our denial of the petition
means. Occasionally, members of the public seem to believe that a denial of our acceptance of a
case signals that the petition's allegations are either false or not serious. Nothing could be further
from the truth. Indeed, sometimes, we deny petitions even when it appears that a law has been
violated. Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶¶14–16, 393 Wis. 2d 629, 948 N.W.2d
877 (Roggensack, C.J., dissenting).
II. CONCLUSION
I conclude that we have subject matter jurisdiction that enables us to grant the petition for
original action pending before us. Our jurisdiction arises from the Wisconsin Constitution and
cannot be impeded by statute. Wis. Const., art. VII, Section 3(2); City of Eau Claire, 370 Wis. 2d
595, ¶7. Furthermore, time is of the essence.
However, fact-finding may be central to our evaluation of some of the questions presented.
I agree that the circuit court should examine the record presented during the canvasses to make
factual findings where legal challenges to the vote turn on questions of fact. However, I dissent
because I would grant the petition for original action, refer for necessary factual findings to the
circuit court, who would then report its factual findings to us, and we would decide the important
legal questions presented.
I am authorized to state that Justice ANNETTE KINGSLAND ZIEGLER joins this dissent.

1297 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 11 Document 57-2

Page 5
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

REBECCA GRASSL BRADLEY, J. (dissenting). "It is emphatically the province and
duty of the Judicial Department to say what the law is." Marbury v. Madison, 5 U.S. 137, 177
(1803). The Wisconsin Supreme Court forsakes its duty to the people of Wisconsin in declining
to decide whether election officials complied with Wisconsin's election laws in administering the
November 3, 2020 election. Instead, a majority of this court passively permits the Wisconsin
Elections Commission (WEC) to decree its own election rules, thereby overriding the will of the
people as expressed in the election laws enacted by the people's elected representatives. Allowing
six unelected commissioners to make the law governing elections, without the consent of the
governed, deals a death blow to democracy. I dissent.
The President of the United States challenges the legality of the manner in which certain
Wisconsin election officials directed the casting of absentee ballots, asserting they adopted and
implemented particular procedures in violation of Wisconsin law. The respondents implore this
court to reject the challenge because, they argue, declaring the law at this point would
"retroactively change the rules" after the election. It is THE LAW that constitutes "the rules" of
the election and election officials are bound to follow the law, if we are to be governed by the rule
of law, and not of men.
Under the Wisconsin Constitution, "all governmental power derives 'from the consent of
the governed' and government officials may act only within the confines of the authority the people
give them. Wis. Const. art. I, § 1." Wisconsin Legislature v. Palm, 2020 WI 42, ¶66, 391 Wis. 2d
497, 942 N.W.2d 900 (Rebecca Grassl Bradley, J., concurring). The Founders designed our
"republic to be a government of laws, and not of men . . . bound by fixed laws, which the people
have a voice in making, and a right to defend." John Adams, Novanglus: A History of the Dispute
with America, from Its Origin, in 1754, to the Present Time, in Revolutionary Writings of John
Adams (C. Bradley Thompson ed. 2000) (emphasis in original). Allowing any person, or
unelected commission of six, to be "bound by no law or limitation but his own will" defies the will
of the people. Id.
The importance of having the State's highest court resolve the significant legal issues
presented by the petitioners warrants the exercise of this court's constitutional authority to hear
this case as an original action.
See Wis. Const. Art. VII, § 3.
"The purity
and integrity of elections is a matter of such prime importance, and affects so many important
interests, that the courts ought never to hesitate, when the opportunity is offered, to test them by
the strictest legal standards." State v. Conness, 106 Wis. 425, 82 N.W. 288, 289 (1900). While
the court reserves this exercise of its jurisdiction for those original actions of statewide
significance, it is beyond dispute that "[e]lections are the foundation of American government and
their integrity is of such monumental importance that any threat to their validity should trigger not
only our concern but our prompt action." State ex rel. Zignego v. Wis. Elec. Comm'n, 2020AP123W (S. Ct. Order issued June 1, 2020 (Rebecca Grassl Bradley, J., dissenting)).
The majority notes that an action "may be filed by an aggrieved candidate in circuit court.
Wis. Stat. § 9.01(6)." Justice Hagedorn goes so far as to suggest that § 9.01 "constitutes the
'exclusive judicial remedy' applicable to this claim." No statute, however, can circumscribe the

1298 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 11 Document 57-2

Page 6
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

constitutional jurisdiction of the Wisconsin Supreme Court to hear this (or any) case as an original
action. "The Wisconsin Constitution IS the law—and it reigns supreme over any statute."
Wisconsin Legislature v. Palm, 391 Wis. 2d 497, ¶67 n.3 (Rebecca Grassl Bradley, J., concurring).
"The Constitution's supremacy over legislation bears repeating: 'the Constitution is to be
considered in court as a paramount law' and 'a law repugnant to the Constitution is void, and . . .
courts, as well as other departments, are bound by that instrument.' See Marbury [v. Madison], 5
U.S. (1 Cranch) [137] at 178, 180 [1803])." Mayo v. Wis. Injured Patients and Families Comp.
Fund, 2018 WI 78, ¶91, 383 Wis. 2d 1, 914 N.W.2d 678 (Rebecca Grassl Bradley, J., concurring).
Wisconsin Statute § 9.01 is compatible with the constitution. While it provides an avenue for
aggrieved candidates to pursue an appeal to a circuit court after completion of the recount
determination, it does not foreclose the candidate's option to ask this court to grant his petition for
an original action. Any contrary reading would render the law in conflict with the constitution and
therefore void. Under the constitutional-doubt canon of statutory interpretation, "[a] statute should
be interpreted in a way that avoids placing its constitutionality in doubt." Antonin Scalia & Brian
A. Garner, Reading Law: The Interpretation of Legal Texts 247. See also Wisconsin Legislature
v. Palm, 391 Wis. 2d 497, ¶31 ("[W]e disfavor statutory interpretations that unnecessarily raise
serious constitutional questions about the statute under consideration.").
While some will either celebrate or decry the court's inaction based upon the impact on
their preferred candidate, the importance of this case transcends the results of this particular
election. "Confidence in the integrity of our electoral processes is essential to the functioning of
our participatory democracy." Purcell v. Gonzalez, 549 U.S. 1, 4 (2006). The majority takes a
pass on resolving the important questions presented by the petitioners in this case, thereby
undermining the public's confidence in the integrity of Wisconsin's electoral processes not only
during this election, but in every future election. Alarmingly, the court's inaction also signals to
the WEC that it may continue to administer elections in whatever manner it chooses, knowing that
the court has repeatedly declined to scrutinize its conduct. Regardless of whether the WEC's
actions affect election outcomes, the integrity of every election will be tarnished by the public's
mistrust until the Wisconsin Supreme Court accepts its responsibility to declare what the election
laws say. "Only . . . the supreme court can provide the necessary clarity to guide all election
officials in this state on how to conform their procedures to the law" going forward. State ex rel.
Zignego v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca
Grassl Bradley, J., dissenting)).
The majority's recent pattern of deferring or altogether dodging decisions on election law
controversies4 cannot be reconciled with its lengthy history of promptly hearing cases involving
4

Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶¶84, 86, 393 Wis. 2d 629, 948 N.W.2d 877
(Rebecca Grassl Bradley, J., dissenting) ("The majority upholds the Wisconsin Elections
Commission's violation of Wisconsin law, which irrefutably entitles Howie Hawkins and Angela
Walker to appear on Wisconsin's November 2020 general election ballot as candidates for
President and Vice President of the United States . . . . In dodging its responsibility to uphold
the rule of law, the majority ratifies a grave threat to our republic, suppresses the votes of

1299 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 11 Document 57-2

Page 7
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

voting rights and election processes under the court's original jurisdiction or by bypassing the court
of appeals.5 While the United States Supreme Court has recognized that "a state indisputably has
a compelling interest in preserving the integrity of its election process[,]" Burson v. Freeman, 504
U.S. 191, 199 (1992), the majority of this court repeatedly demonstrates a lack of any interest in
doing so, offering purely discretionary excuses or no reasoning at all. This year, the majority in
Hawkins v. Wis. Elec. Comm'n declined to hear a claim that the WEC unlawfully kept the Green
Party's candidates for President and Vice President off of the ballot, ostensibly because the
majority felt the candidates' claims were brought "too late."6 But when litigants have filed cases
involving voting rights well in advance of Wisconsin elections, the court has "take[n] a pass,"

Wisconsin citizens, irreparably impairs the integrity of Wisconsin's elections, and undermines the
confidence of American citizens in the outcome of a presidential election"); State ex rel. Zignego
v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca Grassl
Bradley, J., dissenting)) ("In declining to hear a case presenting issues of first impression
immediately impacting the voting rights of Wisconsin citizens and the integrity of impending
elections, the court shirks its institutional responsibilities to the people who elected us to make
important decisions, thereby signaling the issues are not worthy of our prompt attention."); State
ex rel. Zignego v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued June 1, 2020 (Rebecca
Grassl Bradley, J., dissenting)) ("A majority of this court disregards its duty to the people we serve
by inexplicably delaying the final resolution of a critically important and time-sensitive case
involving voting rights and the integrity of Wisconsin's elections.").
5

See, e.g., NAACP v. Walker, 2014 WI 98, ¶¶1, 18, 357 Wis. 2d 469, 851
N.W.2d 262 (2014) (this court took jurisdiction of appeal on its own motion in order to decide
constitutionality of the voter identification act enjoined by lower court); Elections Bd. of
Wisconsin v. Wisconsin Mfrs. & Commerce, 227 Wis. 2d 650, 653, 670, 597 N.W.2d 721 (1999)
(this court granted bypass petition to decide whether express advocacy advertisements advocating
the defeat or reelection of incumbent legislators violated campaign finance laws, in absence of
cases interpreting applicable statutes); State ex rel. La Follette v. Democratic Party of United
States, 93 Wis. 2d 473, 480-81, 287 N.W.2d 519 (1980) (original action deciding whether
Wisconsin open primary system was binding on national political parties or infringed their freedom
of association), rev'd, Democratic Party of United States v. Wisconsin ex rel. La Follette, 450 U.S.
107 (1981); State ex rel. Reynolds v. Zimmerman, 22 Wis. 2d 544, 548, 126 N.W.2d 551 (1964)
(original action seeking to enjoin state from holding elections pursuant to legislative
apportionment alleged to violate constitutional rights); State ex rel. Broughton v. Zimmerman, 261
Wis. 398, 400, 52 N.W.2d 903 (1952) (original action to restrain the state from holding elections
based on districts as defined prior to enactment of reapportionment law), overruled in part by
Reynolds, 22 Wis. 2d 544; State ex rel. Conlin v. Zimmerman, 245 Wis. 475, 476, 15 N.W.2d 32
(1944) (original action to interpret statutes in determining whether candidate for Governor timely
filed papers to appear on primary election ballot).
6

Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶5, 393 Wis. 2d 629, 948 N.W.2d 877
(denying the petition for leave to commence an original action).

1300 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 11 Document 57-2

Page 8
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

thereby "irreparably den[ying] the citizens of Wisconsin a timely resolution of issues that impact
voter rights and the integrity of our elections." State ex rel. Zignego v. Wis. Elec. Comm'n,
2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca Grassl Bradley, J., dissenting)).
Having neglected to identify any principles guiding its decisions, the majority leaves Wisconsin's
voters and candidates guessing as to when, exactly, they should file their cases in order for the
majority to deem them worthy of the court's attention.
The consequence of the majority operating by whim rather than rule is to leave the
interpretation of multiple election laws in flux—or worse yet, in the hands of the unelected
members of the WEC. "To be free is to live under a government by law . . . . Miserable is the
condition of individuals, danger is the condition of the state, if there is no certain law, or, which is
the same thing, no certain administration of the law . . . ." Judgment in Rex vs. Shipley, 21 St
Tr 847 (K.B. 1784) (Lord Mansfield presiding). The Wisconsin Supreme Court has an institutional
responsibility to decide important questions of law—not for the benefit of particular litigants, but
for citizens we were elected to serve. Justice for the people of Wisconsin means ensuring the
integrity of Wisconsin's elections. A majority of this court disregards its duty to the people of
Wisconsin, denying them justice.
"No aspect of the judicial power is more fundamental than the judiciary's exclusive
responsibility to exercise judgment in cases and controversies arising under the law." Gabler v.
Crime Victims Rights Bd., 2017 WI 67, ¶37, 376 Wis. 2d 147, 897 N.W.2d 384. Once again, a
majority of this court instead "chooses to sit idly by,"7 in a nationally important and time-sensitive
case involving voting rights and the integrity of Wisconsin's elections, depriving the people of
Wisconsin of answers to questions of statutory law that only the state's highest court may resolve.
The majority's "refusal to hear this case shows insufficient respect to the State of [Wisconsin], its
voters,"8 and its elections.
"This great source of free government, popular election, should be perfectly pure."
Alexander Hamilton, Speech at New York Ratifying Convention (June 21, 1788), in Debates on
the Federal Constitution 257 (J. Elliot ed. 1876). The majority's failure to act leaves an indelible
stain on our most recent election. It will also profoundly and perhaps irreparably impact all local,
statewide, and national elections going forward, with grave consequence to the State of Wisconsin
and significant harm to the rule of law. Petitioners assert troubling allegations of noncompliance
with Wisconsin's election laws by public officials on whom the voters rely to ensure free and fair
elections. It is not "impulse"9 but our solemn judicial duty to say what the law is that compels the
exercise of our original jurisdiction in this case. The majority's failure to embrace its duty (or even
United Student Aid Funds, Inc. v. Bible, 136 S. Ct. 1607, 1609 (2016) (Thomas, J.,
dissenting from the denial of certiorari).
7

8

County of Maricopa, Arizona v. Lopez-Valenzuela, 135 S. Ct. 2046, 2046 (2015)
(Thomas, J., dissenting from the denial of certiorari).
9

See Justice Hagedorn's concurrence.

1301 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 11 Document 57-2

Page 9
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

an impulse) to decide this case risks perpetuating violations of the law by those entrusted to follow
it. I dissent.
I am authorized to state that Chief Justice PATIENCE DRAKE ROGGENSACK and
Justice ANNETTE KINGSLAND ZIEGLER join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Andrew A. Jones
Andrew J. Kramer
James F. Cirincione
Hansen Reynolds LLC
301 N. Broadway St., Ste. 400
Milwaukee, WI 53202-2660
John W. McCauley
Hansen Reynolds LLC
10 E. Doty St. Ste 800
Madison, WI 53703
Jeffrey A. Mandell
Rachel E. Snyder
Stafford Rosenbaum LLP
222 W. Washington Avenue
Post Office Box 1784
Madison, WI 53701
Daniel R. Suhr
Liberty Justice Center
190 LaSalle St., Ste. 1500
Chicago, IL 60603
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street, Suite 500
Milwaukee, WI 53202

Charles G. Curtis
Michelle M. Umberger
Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Suite 201
Madison, WI 53703
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
Susman Godfrey LLP
1000 Louisiana Street
Suite 5100
Houston, TX 77002
Paul Smith
Campaign Legal Center
1101 14th Street NW, Suite 400
Washington, DC 20005
David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

1302 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 11 Document 57-2

Page 10
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

Marc E. Elias
John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005

Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

1303 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 11 Document 57-2

Exhibit 3

1304

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 3 Document 57-3

OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 3, 2020

To:
Joshua Kaul
Charlotte Gibson
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
Karen L. Mueller
Amos Center for Justice and Liberty
18261 57th Avenue
Chippewa Falls, WI 54729

Charles G. Curtis

Michelle M. Umberger

Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Ste. 201
Madison, WI 53703
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street Suite 500
Milwaukee, WI 53202
*Address list continued on Page 2

You are hereby notified that the Court has entered the following order:
No. 2020AP1958-OA

Mueller v. Jacobs

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70 has
been filed on behalf of petitioner, Dean W. Mueller. A response has been filed by respondents,
Ann S. Jacobs, in her official capacity as chair of the Wisconsin Elections Commission, et al. A
motion to intervene has been filed by proposed intervenor-respondent, Democratic National
Committee. The court having considered all of the filings,
IT IS ORDERED that the petition for leave to commence an original action is denied; and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.

1305

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 3 Document 57-3

Page 2
December 3, 2020
No. 2020AP1958-OA

Mueller v. Jacobs

PATIENCE DRAKE ROGGENSACK, C.J., ANNETTE KINGSLAND ZIEGLER, J., and
REBECCA GRASSL BRADLEY, J. (dissenting). This court cannot continue to shirk its
institutional responsibilities to the people of Wisconsin.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
Marc E. Elias
John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

1306

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 3 Document 57-3

Exhibit 4

1307 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3295 Filed 12/07/20 Page 1 of 36

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD,
JAMES DAVID HOOPER, and
DAREN WADE RUBINGH,
Plaintiffs,
v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, and MICHIGAN
BOARD OF STATE CANVASSERS,

Civil Case No. 20-13134
Honorable Linda V. Parker

Defendants,
and
CITY OF DETROIT, DEMOCRATIC
NATIONAL COMMITTEE and
MICHIGAN DEMOCRATIC PARTY, and
ROBERT DAVIS,
Intervenor-Defendants.
___________________________________/
OPINION AND ORDER DENYING PLAINTIFFS’ “EMERGENCY
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF” (ECF NO. 7)
The right to vote is among the most sacred rights of our democracy and, in
turn, uniquely defines us as Americans. The struggle to achieve the right to vote is
1

1308 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3296 Filed 12/07/20 Page 2 of 36

one that has been both hard fought and cherished throughout our country’s history.
Local, state, and federal elections give voice to this right through the ballot. And
elections that count each vote celebrate and secure this cherished right.
These principles are the bedrock of American democracy and are widely
revered as being woven into the fabric of this country. In Michigan, more than 5.5
million citizens exercised the franchise either in person or by absentee ballot
during the 2020 General Election. Those votes were counted and, as of November
23, 2020, certified by the Michigan Board of State Canvassers (also “State
Board”). The Governor has sent the slate of Presidential Electors to the Archivist
of the United States to confirm the votes for the successful candidate.
Against this backdrop, Plaintiffs filed this lawsuit, bringing forth claims of
widespread voter irregularities and fraud in the processing and tabulation of votes
and absentee ballots. They seek relief that is stunning in its scope and breathtaking
in its reach. If granted, the relief would disenfranchise the votes of the more than
5.5 million Michigan citizens who, with dignity, hope, and a promise of a voice,
participated in the 2020 General Election. The Court declines to grant Plaintiffs
this relief.
I.

Background
In the weeks leading up to, and on, November 3, 2020, a record 5.5 million

Michiganders voted in the presidential election (“2020 General Election”). (ECF
2

1309 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3297 Filed 12/07/20 Page 3 of 36

No. 36-4 at Pg ID 2622.) Many of those votes were cast by absentee ballot. This
was due in part to the coronavirus pandemic and a ballot measure the Michigan
voters passed in 2018 allowing for no-reason absentee voting. When the polls
closed and the votes were counted, Former Vice President Joseph R. Biden, Jr. had
secured over 150,000 more votes than President Donald J. Trump in Michigan.
(Id.)
Michigan law required the Michigan State Board of Canvassers to canvass
results of the 2020 General Election by November 23, 2020. Mich. Comp. Laws
§ 168.842. The State Board did so by a 3-0 vote, certifying the results “for the
Electors of President and Vice President,” among other offices. (ECF No. 36-5 at
Pg ID 2624.) That same day, Governor Gretchen Whitmer signed the Certificates
of Ascertainment for the slate of electors for Vice President Biden and Senator
Kamala D. Harris. (ECF No. 36-6 at Pg ID 2627-29.) Those certificates were
transmitted to and received by the Archivist of the United States. (Id.)
Federal law provides that if election results are contested in any state, and if
the state, prior to election day, has enacted procedures to decide controversies or
contests over electors and electoral votes, and if these procedures have been
applied, and the decisions are made at least six days before the electors’ meetings,
then the decisions are considered conclusive and will apply in counting the
electoral votes. 3 U.S.C. § 5. This date (the “Safe Harbor” deadline) falls on
3

1310 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3298 Filed 12/07/20 Page 4 of 36

December 8, 2020. Under the federal statutory timetable for presidential elections,
the Electoral College must meet on “the first Monday after the second Wednesday
in December,” 3 U.S.C. § 7, which is December 14 this year.
Alleging widespread fraud in the distribution, collection, and counting of
ballots in Michigan, as well as violations of state law as to certain election
challengers and the manipulation of ballots through corrupt election machines and
software, Plaintiffs filed the current lawsuit against Defendants at 11:48 p.m. on
November 25, 2020—the eve of the Thanksgiving holiday. (ECF No. 1.)
Plaintiffs are registered Michigan voters and nominees of the Republican Party to
be Presidential Electors on behalf of the State of Michigan. (ECF No. 6 at Pg ID
882.) They are suing Governor Whitmer and Secretary of State Jocelyn Benson in
their official capacities, as well as the Michigan Board of State Canvassers.
On November 29, a Sunday, Plaintiffs filed a First Amended Complaint
(ECF No. 6), “Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief and Memorandum in Support Thereof” (ECF No. 7), and
Emergency Motion to Seal (ECF No. 8). In their First Amended Complaint,
Plaintiffs allege three claims pursuant to 42 U.S.C. § 1983: (Count I) violation of
the Elections and Electors Clauses; (Count II) violation of the Fourteenth
Amendment Equal Protection Clause; and, (Count III) denial of the Fourteenth

4

1311 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3299 Filed 12/07/20 Page 5 of 36

Amendment Due Process Clause. (ECF No. 6.) Plaintiffs also assert one count
alleging violations of the Michigan Election Code. (Id.)
By December 1, motions to intervene had been filed by the City of Detroit
(ECF No. 15), Robert Davis (ECF No. 12), and the Democratic National
Committee and Michigan Democratic Party (“DNC/MDP”) (ECF No. 14). On that
date, the Court entered a briefing schedule with respect to the motions. Plaintiffs
had not yet served Defendants with their pleading or emergency motions as of
December 1. Thus, on December 1, the Court also entered a text-only order to
hasten Plaintiffs’ actions to bring Defendants into the case and enable the Court to
address Plaintiffs’ pending motions. Later the same day, after Plaintiffs filed
certificates of service reflecting service of the summons and Amended Complaint
on Defendants (ECF Nos. 21), the Court entered a briefing schedule with respect to
Plaintiffs’ emergency motions, requiring response briefs by 8:00 p.m. on
December 2, and reply briefs by 8:00 p.m. on December 3 (ECF No. 24).
On December 2, the Court granted the motions to intervene. (ECF No. 28.)
Response and reply briefs with respect to Plaintiffs’ emergency motions were
thereafter filed. (ECF Nos. 29, 31, 32, 34, 35, 36, 37, 39, 49, 50.) Amicus curiae
Michigan State Conference NAACP subsequently moved and was granted leave to
file a brief in support of Defendants’ position. (ECF Nos. 48, 55.) Supplemental
briefs also were filed by the parties. (ECF Nos. 57, 58.)
5

1312 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3300 Filed 12/07/20 Page 6 of 36

In light of the limited time allotted for the Court to resolve Plaintiffs’
emergency motion for injunctive relief—which Plaintiffs assert “must be granted
in advance of December 8, 2020” (ECF No. 7 at Pg ID 1846)—the Court has
disposed of oral argument with respect to their motion pursuant to Eastern District
of Michigan Local Rule 7.1(f).1
II.

Standard of Review
A preliminary injunction is “an extraordinary remedy that may only be

awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008) (citation omitted). The plaintiff
bears the burden of demonstrating entitlement to preliminary injunctive relief.
Leary v. Daeschner, 228 F.3d 729, 739 (6th Cir. 2000). Such relief will only be
granted where “the movant carries his or her burden of proving that the
circumstances clearly demand it.” Overstreet v. Lexington-Fayette Urban Cnty.
Gov’t, 305 F.3d 566, 573 (6th Cir. 2002). “Evidence that goes beyond the
unverified allegations of the pleadings and motion papers must be presented to

“‘[W]here material facts are not in dispute, or where facts in dispute are not
material to the preliminary injunction sought, district courts generally need not
hold an evidentiary hearing.’” Nexus Gas Transmission, LLC v. City of Green,
Ohio, 757 Fed. Appx. 489, 496-97 (6th Cir. 2018) (quoting Certified Restoration
Dry Cleaning Network, LLC v. Tenke Corp., 511 F.3d 535, 553 (6th Cir. 2007))
(citation omitted).
1

6

1313 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3301 Filed 12/07/20 Page 7 of 36

support or oppose a motion for a preliminary injunction.” 11A Mary Kay Kane,
Fed. Prac. & Proc. § 2949 (3d ed.).
Four factors are relevant in deciding whether to grant preliminary injunctive
relief: “‘(1) whether the movant has a strong likelihood of success on the merits;
(2) whether the movant would suffer irreparable injury absent the injunction; (3)
whether the injunction would cause substantial harm to others; and (4) whether the
public interest would be served by the issuance of an injunction.’” Daunt v.
Benson, 956 F.3d 396, 406 (6th Cir. 2020) (quoting Bays v. City of Fairborn, 668
F.3d 814, 818-19 (6th Cir. 2012)). “At the preliminary injunction stage, ‘a plaintiff
must show more than a mere possibility of success,’ but need not ‘prove his case in
full.’” Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d 580, 591 (6th Cir. 2012)
(quoting Certified Restoration Dry Cleaning Network, LLC v. Tenke Corp., 511
F.3d 535, 543 (6th Cir. 2007)). Yet, “the proof required for the plaintiff to obtain a
preliminary injunction is much more stringent than the proof required to survive a
summary judgment motion ….” Leary, 228 F.3d at 739.
III.

Discussion
The Court begins by discussing those questions that go to matters of subject

matter jurisdiction or which counsel against reaching the merits of Plaintiffs’
claims. While the Court finds that any of these issues, alone, indicate that
Plaintiffs’ motion should be denied, it addresses each to be thorough.
7

1314 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3302 Filed 12/07/20 Page 8 of 36

A.

Eleventh Amendment Immunity

The Eleventh Amendment to the United States Constitution provides:
The judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
U.S. Const. amend. XI. This immunity extends to suits brought by citizens against
their own states. See, e.g., Ladd v. Marchbanks, 971 F.3d 574, 578 (6th Cir. 2020)
(citing Hans v. Louisiana, 134 U.S. 1, 18-19 (1890)). It also extends to suits
against state agencies or departments, Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 100 (1984) (citations omitted), and “suit[s] against state officials
when ‘the state is the real, substantial party in interest[,]’” id. at 101 (quoting Ford
Motor Co. v. Dep’t of Treasury, 323 U.S. 459, 464 (1945)).
A suit against a State, a state agency or its department, or a state official is in
fact a suit against the State and is barred “regardless of the nature of the relief
sought.” Pennhurst State Sch. & Hosp., 465 U.S. at 100-02 (citations omitted).
“‘The general rule is that a suit is against the sovereign if the judgment sought
would expend itself on the public treasury or domain, or interfere with the public
administration, or if the effect of the judgment would be to restrain the
Government from acting, or to compel it to act.’” Id. at 101 n.11 (quoting Dugan
v. Rank, 372 U.S. 609, 620 (1963)) (internal quotation marks omitted).
8

1315 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3303 Filed 12/07/20 Page 9 of 36

Eleventh Amendment immunity is subject to three exceptions: (1)
congressional abrogation; (2) waiver by the State; and (3) “a suit against a state
official seeking prospective injunctive relief to end a continuing violation of
federal law.” See Carten v. Kent State Univ., 282 F.3d 391, 398 (6th Cir. 2002)
(citations omitted). Congress did not abrogate the States’ sovereign immunity
when it enacted 42 U.S.C. § 1983. Will v. Mich. Dep’t of State Police, 491 U.S.
58, 66 (1989). “The State of Michigan has not consented to being sued in civil
rights actions in the federal courts.” Johnson v. Unknown Dellatifa, 357 F.3d 539,
545 (6th Cir. 2004) (citing Abick v. Michigan, 803 F.2d 874, 877 (6th Cir. 1986)).
The Eleventh Amendment therefore bars Plaintiffs’ claims against the Michigan
Board of State Canvassers. See McLeod v. Kelly, 7 N.W.2d 240, 242 (Mich. 1942)
(“The board of State canvassers is a State agency …”); see also Deleeuw v. State
Bd. of Canvassers, 688 N.W.2d 847, 850 (Mich. Ct. App. 2004). Plaintiffs’ claims
are barred against Governor Whitmer and Secretary Benson unless the third
exception applies.
The third exception arises from the Supreme Court’s decision in Ex parte
Young, 209 U.S. 123 (1908). But as the Supreme Court has advised:
To interpret Young to permit a federal-court action to
proceed in every case where prospective declaratory and
injunctive relief is sought against an officer, named in his
individual capacity, would be to adhere to an empty
formalism and to undermine the principle … that
Eleventh Amendment immunity represents a real
9

1316 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3304 Filed 12/07/20 Page 10 of 36

limitation on a federal court’s federal-question
jurisdiction. The real interests served by the Eleventh
Amendment are not to be sacrificed to elementary
mechanics of captions and pleading. Application of the
Young exception must reflect a proper understanding of
its role in our federal system and respect for state courts
instead of a reflexive reliance on an obvious fiction.
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261, 270 (1997). Further, “the
theory of Young has not been provided an expansive interpretation.” Pennhurst
State Sch. & Hosp., 465 U.S. at 102. “‘In determining whether the doctrine of Ex
parte Young avoids an Eleventh Amendment bar to suit, a court need only conduct
a straightforward inquiry into whether [the] complaint alleges an ongoing violation
of federal law and seeks relief properly characterized as prospective.’” Verizon
Md., Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 645 (2002) (quoting Coeur d’Alene
Tribe of Idaho, 521 U.S. 296 (O’Connor, J., concurring)).
Ex parte Young does not apply, however, to state law claims against state
officials, regardless of the relief sought. Pennhurst State Sch. & Hosp., 465 U.S. at
106 (“A federal court’s grant of relief against state officials on the basis of state
law, whether prospective or retroactive, does not vindicate the supreme authority
of federal law. On the contrary, it is difficult to think of a greater intrusion on state
sovereignty than when a federal court instructs state officials on how to conform
their conduct to state law.”); see also In re Ohio Execution Protocol Litig., 709 F.
App’x 779, 787 (6th Cir. 2017) (“If the plaintiff sues a state official under state law
10

1317 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3305 Filed 12/07/20 Page 11 of 36

in federal court for actions taken within the scope of his authority, sovereign
immunity bars the lawsuit regardless of whether the action seeks monetary or
injunctive relief.”). Unquestionably, Plaintiffs’ state law claims against
Defendants are barred by Eleventh Amendment immunity.
The Court then turns its attention to Plaintiffs’ § 1983 claims against
Defendants. Defendants and Intervenor DNC/MDP contend that these claims are
not in fact federal claims as they are premised entirely on alleged violations of
state law. (ECF No. 31 at Pg ID 2185 (“Here, each count of Plaintiffs’
complaint—even Counts I, II, and III, which claim to raise violations of federal
law—is predicated on the election being conducted contrary to Michigan law.”);
ECF No. 36 at Pg ID 2494 (“While some of [Plaintiffs’] allegations concern
fantastical conspiracy theories that belong more appropriately in the fact-free outer
reaches of the Internet[,] … what Plaintiffs assert at bottom are violations of the
Michigan Election Code.”) Defendants also argue that even if properly stated as
federal causes of action, “it is far from clear whether Plaintiffs’ requested
injunction is actually prospective in nature, as opposed to retroactive.” (ECF No.
31 at Pg ID 2186.)
The latter argument convinces this Court that Ex parte Young does not
apply. As set forth earlier, “‘[i]n order to fall with the Ex parte Young exception, a
claim must seek prospective relief to end a continuing violation of federal law.’”
11

1318 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3306 Filed 12/07/20 Page 12 of 36

Russell v. Lundergan-Grimes, 784 F.3d 1037, 1047 (6th Cir. 2015) (quoting Diaz
v. Mich. Dep’t of Corr., 703 F.3d 956, 964 (6th Cir. 2013)). Unlike Russell, which
Plaintiffs cite in their reply brief, this is not a case where a plaintiff is seeking to
enjoin the continuing enforcement of a statute that is allegedly unconstitutional.
See id. at 1044, 1047 (plaintiff claimed that Kentucky law creating a 300-foot nopolitical-speech buffer zone around polling location violated his free-speech
rights). Instead, Plaintiffs are seeking to undo what has already occurred, as their
requested relief reflects.2 (See ECF No. 7 at Pg ID 1847; see also ECF No. 6 at Pg
955-56.)
Before this lawsuit was filed, the Michigan Board of State Canvassers had
already certified the election results and Governor Whitmer had transmitted the
State’s slate of electors to the United States Archivist. (ECF Nos. 31-4, 31-5.)
There is no continuing violation to enjoin. See Rios v. Blackwell, 433 F. Supp. 2d
848 (N.D. Ohio Feb. 7, 2006); see also King Lincoln Bronzeville Neighborhood
Ass’n v. Husted, No. 2:06-cv-00745, 2012 WL 395030, at *4-5 (S.D. Ohio Feb. 7,
2012); cf. League of Women Voters of Ohio v. Brunner, 548 F.3d 463, 475 (6th Cir.
2008) (finding that the plaintiff’s claims fell within the Ex parte Young doctrine

To the extent Plaintiffs ask the Court to certify the results in favor of President
Donald J. Trump, such relief is beyond its powers.
12
2

1319 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3307 Filed 12/07/20 Page 13 of 36

where it alleged that the problems that plagued the election “are chronic and will
continue absent injunctive relief”).
For these reasons, the Court concludes that the Eleventh Amendment bars
Plaintiffs’ claims against Defendants.
B.

Mootness

This case represents well the phrase: “this ship has sailed.” The time has
passed to provide most of the relief Plaintiffs request in their Amended Complaint;
the remaining relief is beyond the power of any court. For those reasons, this
matter is moot.
“‘Under Article III of the Constitution, federal courts may adjudicate only
actual, ongoing cases or controversies.’” Kentucky v. U.S. ex rel. Hagel, 759 F.3d
588, 595 (6th Cir. 2014) (quoting Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477
(1990)). A case may become moot “when the issues presented are no longer live
or the parties lack a legally cognizable interest in the outcome.” U.S. Parole
Comm’n v. Geraghty, 445 U.S. 388, 396, 410 (1980) (internal quotation marks and
citation omitted). Stated differently, a case is moot where the court lacks “the
ability to give meaningful relief[.]” Sullivan v. Benningfield, 920 F.3d 401, 410
(6th Cir. 2019). This lawsuit was moot well before it was filed on November 25.
In their prayer for relief, Plaintiffs ask the Court to: (a) order Defendants to
decertify the results of the election; (b) enjoin Secretary Benson and Governor
13

1320 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3308 Filed 12/07/20 Page 14 of 36

Whitmer from transmitting the certified election results to the Electoral College;
(c) order Defendants “to transmit certified election results that state that President
Donald Trump is the winner of the election”; (d) impound all voting machines and
software in Michigan for expert inspection; (e) order that no votes received or
tabulated by machines not certified as required by federal and state law be counted;
and, (f) enter a declaratory judgment that mail-in and absentee ballot fraud must be
remedied with a manual recount or statistically valid sampling.3 (ECF No. 6 at Pg
ID 955-56, ¶ 233.) What relief the Court could grant Plaintiffs is no longer
available.
Before this lawsuit was filed, all 83 counties in Michigan had finished
canvassing their results for all elections and reported their results for state office
races to the Secretary of State and the Michigan Board of State Canvassers in
accordance with Michigan law. See Mich. Comp. Laws § 168.843. The State
Board had certified the results of the 2020 General Election and Governor
Whitmer had submitted the slate of Presidential Electors to the Archivists. (ECF

Plaintiffs also seek an order requiring the impoundment of all voting machines
and software in Michigan for expert inspection and the production of security
camera footage from the TCF Center for November 3 and 4. (ECF No. 6 at Pg ID
956, ¶ 233.) This requested relief is not meaningful, however, where the remaining
requests are no longer available. In other words, the evidence Plaintiffs seek to
gather by inspecting voting machines and software and security camera footage
only would be useful if an avenue remained open for them to challenge the election
results.
14
3

1321 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3309 Filed 12/07/20 Page 15 of 36

No. 31-4 at Pg ID 2257-58; ECF No. 31-5 at Pg ID 2260-63.) The time for
requesting a special election based on mechanical errors or malfunctions in voting
machines had expired. See Mich. Comp. Laws §§ 168.831, 168.832 (petitions for
special election based on a defect or mechanical malfunction must be filed “no
later than 10 days after the date of the election”). And so had the time for
requesting a recount for the office of President. See Mich. Comp. Laws § 168.879.
The Michigan Election Code sets forth detailed procedures for challenging
an election, including deadlines for doing so. Plaintiffs did not avail themselves of
the remedies established by the Michigan legislature. The deadline for them to do
so has passed. Any avenue for this Court to provide meaningful relief has been
foreclosed. As the Eleventh Circuit Court of Appeals recently observed in one of
the many other post-election lawsuits brought to specifically overturn the results of
the 2020 presidential election:
“We cannot turn back the clock and create a world in
which” the 2020 election results are not certified.
Fleming v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015).
And it is not possible for us to delay certification nor
meaningful to order a new recount when the results are
already final and certified.
Wood v. Raffensperger, -- F.3d -- , 2020 WL 7094866 (11th Cir. Dec. 5, 2020).
And as one Justice of the Supreme Court of Pennsylvania advised in another 2020
post-election lawsuit: “there is no basis in law by which the courts may grant
Petitioners’ request to ignore the results of an election and recommit the choice to
15

1322 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3310 Filed 12/07/20 Page 16 of 36

the General Assembly to substitute its preferred slate of electors for the one chosen
by a majority of Pennsylvania’s voters.” Kelly v. Commonwealth, No. 68 MAP
2020, 2020 WL 7018314, at *3 (Pa. Nov. 28, 2020) (Wecht, J., concurring); see
also Wood v. Raffensperger, No. 1:20-cv-04651, 2020 WL 6817513, at *13 (N.D.
Ga. Nov. 20, 2020) (concluding that “interfer[ing] with the result of an election
that has already concluded would be unprecedented and harm the public in
countless ways”).
In short, Plaintiffs’ requested relief concerning the 2020 General Election is
moot.
C.

Laches

Defendants argue that Plaintiffs are unlikely to succeed on the merits
because they waited too long to knock on the Court’s door. (ECF No. 31 at Pg ID
2175-79; ECF No. 39 at Pg ID 2844.) The Court agrees.
The doctrine of laches is rooted in the principle that “equity aids the vigilant,
not those who slumber on their rights.” Lucking v. Schram, 117 F.2d 160, 162 (6th
Cir. 1941); see also United States v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 9
(2008) (“A constitutional claim can become time-barred just as any other claim
can.”). An action may be barred by the doctrine of laches if: (1) the plaintiff
delayed unreasonably in asserting his rights and (2) the defendant is prejudiced by
this delay. Brown-Graves Co. v. Central States, Se. and Sw. Areas Pension Fund,
16

1323 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3311 Filed 12/07/20 Page 17 of 36

206 F.3d 680, 684 (6th Cir. 2000); Ottawa Tribe of Oklahoma v. Logan, 577 F.3d
634, 639 n.6 (6th Cir. 2009) (“Laches arises from an extended failure to exercise a
right to the detriment of another party.”). Courts apply laches in election cases.
Detroit Unity Fund v. Whitmer, 819 F. App’x 421, 422 (6th Cir. 2020) (holding
that the district court did not err in finding plaintiff’s claims regarding deadline for
local ballot initiatives “barred by laches, considering the unreasonable delay on the
part of [p]laintiffs and the consequent prejudice to [d]efendants”). Cf. Benisek v.
Lamone, 138 S. Ct. 1942, 1944 (2018) (“[A] party requesting a preliminary
injunction must generally show reasonable diligence. That is as true in election law
cases as elsewhere.”).
First, Plaintiffs showed no diligence in asserting the claims at bar. They
filed the instant action on November 25—more than 21 days after the 2020
General Election—and served it on Defendants some five days later on December
1. (ECF Nos. 1, 21.) If Plaintiffs had legitimate claims regarding whether the
treatment of election challengers complied with state law, they could have brought
their claims well in advance of or on Election Day—but they did not. Michigan’s
83 Boards of County Canvassers finished canvassing by no later than November
17 and, on November 23, both the Michigan Board of State Canvassers and
Governor Whitmer certified the election results. Mich. Comp. Laws §§ 168.822,
168.842.0. If Plaintiffs had legitimate claims regarding the manner by which
17

1324 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3312 Filed 12/07/20 Page 18 of 36

ballots were processed and tabulated on or after Election Day, they could have
brought the instant action on Election Day or during the weeks of canvassing that
followed—yet they did not. Plaintiffs base the claims related to election machines
and software on “expert and fact witness” reports discussing “glitches” and other
alleged vulnerabilities that occurred as far back as 2010. (See e.g., ECF No. 6 at
Pg ID 927-933, ¶¶ 157(C)-(E), (G), 158, 160, 167.) If Plaintiffs had legitimate
concerns about the election machines and software, they could have filed this
lawsuit well before the 2020 General Election—yet they sat back and did nothing.
Plaintiffs proffer no persuasive explanation as to why they waited so long to
file this suit. Plaintiffs concede that they “would have preferred to file sooner, but
[] needed some time to gather statements from dozens of fact witnesses, retain and
engage expert witnesses, and gather other data supporting their Complaint.” (ECF
No. 49 at Pg ID 3081.) But according to Plaintiffs themselves, “[m]anipulation of
votes was apparent shortly after the polls closed on November 3, 2020.” (ECF No.
7 at Pg ID 1837 (emphasis added).) Indeed, where there is no reasonable
explanation, there can be no true justification. See Crookston v. Johnson, 841 F.3d
396, 398 (6th Cir. 2016) (identifying the “first and most essential” reason to issue a
stay of an election-related injunction is plaintiff offering “no reasonable
explanation for waiting so long to file this action”). Defendants satisfy the first
element of their laches defense.
18

1325 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3313 Filed 12/07/20 Page 19 of 36

Second, Plaintiffs’ delay prejudices Defendants. See Kay v. Austin, 621 F.2d
809, 813 (6th Cir. 1980) (“As time passes, the state’s interest in proceeding with
the election increases in importance as resources are committed and irrevocable
decisions are made, and the candidate’s claim to be a serious candidate who has
received a serious injury becomes less credible by his having slept on his rights.”)
This is especially so considering that Plaintiffs’ claims for relief are not merely
last-minute—they are after the fact. While Plaintiffs delayed, the ballots were cast;
the votes were counted; and the results were certified. The rationale for
interposing the doctrine of laches is now at its peak. See McDonald v. Cnty. of San
Diego, 124 F. App’x 588 (9th Cir. 2005) (citing Soules v. Kauaians for Nukolii
Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988)); Soules, 849 F.2d at 1180
(quoting Hendon v. N.C. State Bd. Of Elections, 710 F.2d 177, 182 (4th Cir. 1983))
(applying doctrine of laches in post-election lawsuit because doing otherwise
would, “permit, if not encourage, parties who could raise a claim to lay by and
gamble upon receiving a favorable decision of the electorate and then, upon losing,
seek to undo the ballot results in a court action”).
Plaintiffs could have lodged their constitutional challenges much sooner than
they did, and certainly not three weeks after Election Day and one week after
certification of almost three million votes. The Court concludes that Plaintiffs’
delay results in their claims being barred by laches.
19

1326 Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3314 Filed 12/07/20 Page 20 of 36

D.

Abstention

As outlined in several filings, when the present lawsuit was filed on
November 25, 2020, there already were multiple lawsuits pending in Michigan
state courts raising the same or similar claims alleged in Plaintiffs’ Amended
Complaint. (See, e.g., ECF No. 31 at Pg ID 2193-98 (summarizing five state court
lawsuits challenging President Trump’s defeat in Michigan’s November 3, 2020
General Election).) Defendants and the City of Detroit urge the Court to abstain
from deciding Plaintiffs’ claims in deference to those proceedings under various
abstention doctrines. (Id. at Pg ID 2191-2203; ECF No. 39 at Pg ID 2840-44.)
Defendants rely on the abstention doctrine outlined by the Supreme Court in
Colorado River Water Conservation District v. United States, 424 U.S. 800 (1976).
The City of Detroit relies on the abstention doctrines outlined in Colorado River,
as well as those set forth in Railroad Commission of Texas v. Pullman Co., 312
U.S. 496, 500-01 (1941), and Burford v. Sun Oil Co., 319 U.S. 315 (1943). The
City of Detroit maintains that abstention is particularly appropriate when resolving
election disputes in light of the autonomy provided to state courts to initially settle
such disputes.
The abstention doctrine identified in Colorado River permits a federal court
to abstain from exercising jurisdiction over a matter in deference to parallel statecourt proceedings. Colorado River, 424 U.S. at 813, 817. The exception is found
20

1327 Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3315 Filed 12/07/20 Page 21 of 36

warranted “by considerations of ‘proper constitutional adjudication,’ ‘regard for
federal-state relations,’ or ‘wise judicial administration.’” Quackenbush v. Allstate
Ins. Co., 517 U.S. 706, 716 (1996) (quoting Colorado River, 424 U.S. at 817). The
Sixth Circuit has identified two prerequisites for abstention under this doctrine.
Romine v. Compuserve Corp., 160 F.3d 337, 339-40 (6th Cir. 1998).
First, the court must determine that the concurrent state and federal actions
are parallel. Id. at 339. Second, the court must consider the factors outlined by the
Supreme Court in Colorado River and subsequent cases:
(1) whether the state court has assumed jurisdiction over
any res or property; (2) whether the federal forum is less
convenient to the parties; (3) avoidance of piecemeal
litigation; … (4) the order in which jurisdiction was
obtained; … (5) whether the source of governing law is
state or federal; (6) the adequacy of the state court action
to protect the federal plaintiff’s rights; (7) the relative
progress of the state and federal proceedings; and (8) the
presence or absence of concurrent jurisdiction.
Romine, 160 F.3d at 340-41 (internal citations omitted). “These factors, however,
do not comprise a mechanical checklist. Rather, they require ‘a careful balancing
of the important factors as they apply in a give[n] case’ depending on the particular
facts at hand.” Id. (quoting Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 16 (1983)).
As summarized in Defendants’ response brief and reflected in their exhibits
(see ECF No. 31 at Pg ID 2193-97; see also ECF Nos. 31-7, 31-9, 31-11, 31-12,
21

1328 Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3316 Filed 12/07/20 Page 22 of 36

31-14), the allegations and claims in the state court proceedings and the pending
matter are, at the very least, substantially similar, Romine, 160 F.3d at 340 (“Exact
parallelism is not required; it is enough if the two proceedings are substantially
similar.” (internal quotation marks and citation omitted)). A careful balancing of
the factors set forth by the Supreme Court counsel in favor of deferring to the
concurrent jurisdiction of the state courts.
The first and second factor weigh against abstention. Id. (indicating that the
weight is against abstention where no property is at issue and neither forum is
more or less convenient). While the Supreme Court has stated that “‘the presence
of federal law issues must always be a major consideration weighing against
surrender of federal jurisdiction in deference to state proceedings[,]’” id. at 342
(quoting Moses H. Cone, 460 U.S. at 26), this “‘factor has less significance where
the federal courts’ jurisdiction to enforce the statutory rights in question is
concurrent with that of the state courts.’”4 Id. (quoting Moses H. Cone, 460 U.S. at
25). Moreover, the Michigan Election Code seems to dominate even Plaintiffs’
federal claims. Further, the remaining factors favor abstention.
“Piecemeal litigation occurs when different courts adjudicate the identical
issue, thereby duplicating judicial effort and potentially rendering conflicting

State courts have concurrent jurisdiction over § 1983 actions. Felder v. Casey,
487 U.S. 131, 139 (1988).
22

4

1329 Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3317 Filed 12/07/20 Page 23 of 36

results.” Id. at 341. The parallel proceedings are premised on similar factual
allegations and many of the same federal and state claims. The state court
proceedings were filed well before the present matter and at least three of those
matters are far more advanced than this case. Lastly, as Congress conferred
concurrent jurisdiction on state courts to adjudicate § 1983 claims, Felder v. Casey,
487 U.S. 131, 139 (1988), “[t]here can be no legitimate contention that the
[Michigan] state courts are incapable of safeguarding [the rights protected under
this statute],” Romine, 160 F.3d at 342.
For these reasons, abstention is appropriate under the Colorado River
doctrine. The Court finds it unnecessary to decide whether abstention is
appropriate under other doctrines.
E.

Standing

Under Article III of the United States Constitution, federal courts can
resolve only “cases” and “controversies.” U.S. Const. art. III § 2. The case-orcontroversy requirement is satisfied only where a plaintiff has standing to bring
suit. See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016), as revised (May 24,
2016). Each plaintiff must demonstrate standing for each claim he seeks to press.5
Plaintiffs assert a due process claim in their Amended Complaint and twice state
in their motion for injunctive relief that Defendants violated their due process
rights. (See ECF No. 7 at Pg ID 1840, 1844.) Plaintiffs do not pair either
statement with anything the Court could construe as a developed argument. (Id.)
The Court finds it unnecessary, therefore, to further discuss the due process claim.
23
5

1330 Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3318 Filed 12/07/20 Page 24 of 36

DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006) (citation omitted) (“[A]
plaintiff must demonstrate standing separately for each form of relief sought.”).
To establish standing, a plaintiff must show that: (1) he has suffered an injury in
fact that is “concrete and particularized” and “actual or imminent”; (2) the injury is
“fairly . . . trace[able] to the challenged action of the defendant”; and (3) it is
“likely, as opposed to merely speculative, that the injury will be redressed by a
favorable decision.” Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-62 (1992)
(internal quotation marks and citations omitted).
1.

Equal Protection Claim

Plaintiffs allege that Defendants engaged in “several schemes” to, among
other things, “destroy,” “discard,” and “switch” votes for President Trump, thereby
“devalu[ing] Republican votes” and “diluting” the influence of their individual
votes. (ECF No. 49 at Pg ID 3079.) Plaintiffs contend that “the vote dilution
resulting from this systemic and illegal conduct did not affect all Michigan voters
equally; it had the intent and effect of inflating the number of votes for Democratic
candidates and reducing the number of votes for President Trump and Republican
candidates.” (ECF No. 49 at Pg ID 3079.) Even assuming that Plaintiffs establish

McPherson v. Kelsey, 125 F.3d 989, 995 (6th Cir. 1997) (“Issues adverted to in a
perfunctory manner, unaccompanied by some effort at developed argumentation,
are deemed waived.”).
24

1331 Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3319 Filed 12/07/20 Page 25 of 36

injury-in-fact and causation under this theory,6 their constitutional claim cannot
stand because Plaintiffs fall flat when attempting to clear the hurdle of
redressability.
Plaintiffs fail to establish that the alleged injury of vote-dilution can be
redressed by a favorable decision from this Court. Plaintiffs ask this Court to decertify the results of the 2020 General Election in Michigan. But an order decertifying the votes of approximately 2.8 million people would not reverse the
dilution of Plaintiffs’ vote. To be sure, standing is not “dispensed in gross: A
plaintiff’s remedy must be tailored to redress the plaintiff’s particular injury.” Gill,
138 S. Ct. at 1934 (citing Cuno, 547 U.S. at 353); Cuno, 547 U.S. at 353 (“The
remedy must of course be limited to the inadequacy that produced the injury in fact
that the plaintiff has established.” (quoting Lewis v. Casey, 518 U.S. 343, 357
(1996)). Plaintiffs’ alleged injury does not entitle them to seek their requested
remedy because the harm of having one’s vote invalidated or diluted is not
remedied by denying millions of others their right to vote. Accordingly, Plaintiffs
have failed to show that their injury can be redressed by the relief they seek and
thus possess no standing to pursue their equal protection claim.

To be clear, the Court does not find that Plaintiffs satisfy the first two elements of
the standing inquiry.
25
6

1332 Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3320 Filed 12/07/20 Page 26 of 36

2.

Elections Clause & Electors Clause Claims

The provision of the United States Constitution known as the Elections
Clause states in part: “The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in each State by the Legislature
thereof[.]” U.S. Const. art. I, § 4, cl. 1. “The Elections Clause effectively gives
state governments the ‘default’ authority to regulate the mechanics of federal
elections, Foster v. Love, 522 U.S. 67, 69, 118 S. Ct. 464, 139 L.Ed.2d 369 (1997),
with Congress retaining ‘exclusive control’ to ‘make or alter’ any state’s
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S. Ct. 1198, 90 L.Ed. 1432
(1946).” Bognet, 2020 WL 6686120, *1. The “Electors Clause” of the
Constitution states: “Each State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors ….” U.S. Const. art. II, § 1, cl. 2.
Plaintiffs argue that, as “nominees of the Republican Party to be Presidential
Electors on behalf of the State of Michigan, they have standing to allege violations
of the Elections Clause and Electors Clause because “a vote for President Trump
and Vice-President Pence in Michigan … is a vote for each Republican elector[],
and … illegal conduct aimed at harming candidates for President similarly injures
Presidential Electors.” (ECF No. 7 at Pg ID 1837-38; ECF No. 49 at Pg ID 307678.)

26

1333 Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3321 Filed 12/07/20 Page 27 of 36

But where, as here, the only injury Plaintiffs have alleged is that the
Elections Clause has not been followed, the United States Supreme Court has made
clear that “[the] injury is precisely the kind of undifferentiated, generalized
grievance about the conduct of government that [courts] have refused to
countenance.”7 Lance v. Coffman, 549 U.S. 437, 442 (2007). Because Plaintiffs
“assert no particularized stake in the litigation,” Plaintiffs fail to establish injuryin-fact and thus standing to bring their Elections Clause and Electors Clause
claims. Id.; see also Johnson v. Bredesen, 356 F. App’x 781, 784 (6th Cir. 2009)
(citing Lance, 549 U.S. at 441-42) (affirming district court’s conclusion that
citizens did not allege injury-in-fact to support standing for claim that the state of
Tennessee violated constitutional law).

Although separate constitutional provisions, the Electors Clause and Elections
Clause share “considerable similarity,” Ariz. State Leg. v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 839, (2015) (Roberts, C.J., dissenting), and Plaintiffs do
not at all distinguish the two clauses in their motion for injunctive relief or reply
brief (ECF No. 7; ECF No. 49 at Pg ID 3076-78). See also Bognet v. Sec’y
Commonwealth of Pa., No. 20-3214, 2020 WL 6686120, at *7 (3d Cir. Nov. 13,
2020) (applying same test for standing under both Elections Clause and Electors
Clause); Wood, 2020 WL 6817513, at *1 (same); Foster, 522 U.S. at 69
(characterizing Electors Clause as Elections Clauses’ “counterpart for the
Executive Branch”); U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 804-05
(1995) (noting that state’s “duty” under Elections Clause “parallels the duty”
described by Electors Clause).
7

27

1334 Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3322 Filed 12/07/20 Page 28 of 36

This is so because the Elections Clause grants rights to “the Legislature” of
“each State.” U.S. Const. art. I, § 4, cl. 1. The Supreme Court interprets the words
“the Legislature,” as used in that clause, to mean the lawmaking bodies of a state.
Ariz. State Legislature, 135 S.Ct. at 2673. The Elections Clause, therefore, grants
rights to state legislatures and to other entities to which a State may delegate
lawmaking authority. See id. at 2668. Plaintiffs’ Elections Clause claims thus
belong, if to anyone, Michigan’s state legislature. Bognet v. Secy. Commonwealth
of Pa., -- F.3d. --, 2020 WL 6686120, *7 (3d Cir. Nov. 13, 2020). Plaintiffs here
are six presidential elector nominees; they are not a part of Michigan’s lawmaking
bodies nor do they have a relationship to them.
To support their contention that they have standing, Plaintiffs point to
Carson v. Simon, 78 F.3d 1051 (8th Cir. 2020), a decision finding that electors had
standing to bring challenges under the Electors Clause. (ECF No. 7 at Pg ID 1839
(citing Carson, 978 F.3d at 1057).) In that case, which was based on the specific
content and contours of Minnesota state law, the Eighth Circuit Court of Appeals
concluded that because “the plain text of Minnesota law treats prospective electors
as candidates,” it too would treat presidential elector nominees as candidates.
Carson, 78 F.3d at 1057. This Court, however, is as unconvinced about the
majority’s holding in Carson as the dissent:
I am not convinced the Electors have Article III standing
to assert claims under the Electors Clause. Although
28

1335 Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3323 Filed 12/07/20 Page 29 of 36

Minnesota law at times refers to them as “candidates,”
see, e.g., Minn. Stat. § 204B.03 (2020), the Electors are
not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office
of elector depends entirely on the outcome of the state
popular vote for president. Id. § 208.04 subdiv. 1 (“[A]
vote cast for the party candidates for president and vice
president shall be deemed a vote for that party’s
electors.”). They are not presented to and chosen by the
voting public for their office, but instead automatically
assume that office based on the public’s selection of
entirely different individuals.
78 F.3d at 1063 (Kelly, J., dissenting).8
Plaintiffs contend that the Michigan Election Code and relevant Minnesota
law are similar. (See ECF No. 49 at Pg ID 3076-78.) Even if the Court were to

In addition, at least one Circuit Court, the Third Circuit Court of Appeals, has
distinguished Carson’s holding, noting:

8

Our conclusion departs from the recent decision of an
Eighth Circuit panel which, over a dissent, concluded
that candidates for the position of presidential elector had
standing under Bond to challenge a Minnesota state-court
consent decree that effectively extended the receipt
deadline for mailed ballots. . . . The Carson court appears
to have cited language from Bond without considering
the context—specifically, the Tenth Amendment and the
reserved police powers—in which the U.S. Supreme
Court employed that language. There is no precedent for
expanding Bond beyond this context, and the Carson
court cited none.
Bognet, 2020 WL 6686120, at *8 n.6.
29

1336 Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3324 Filed 12/07/20 Page 30 of 36

agree, it finds that Plaintiffs lack standing to sue under the Elections and Electors
Clauses.
F.

The Merits of the Request for Injunctive Relief
1.

Likelihood of Success on the Merits

The Court may deny Plaintiffs’ motion for injunctive relief for the reasons
discussed above. Nevertheless, the Court will proceed to analyze the merits of
their claims.
a.

Violation of the Elections & Electors Clauses

Plaintiffs allege that Defendants violated the Elections Clause and Electors
Clause by deviating from the requirements of the Michigan Election Code. (See,
e.g., ECF No. 6 at Pg ID 884-85, ¶¶ 36-40, 177-81, 937-38.) Even assuming
Defendants did not follow the Michigan Election Code, Plaintiffs do not explain
how or why such violations of state election procedures automatically amount to
violations of the clauses. In other words, it appears that Plaintiffs’ claims are in
fact state law claims disguised as federal claims.
A review of Supreme Court cases interpreting these clauses supports this
conclusion. In Cook v. Gralike, the Supreme Court struck down a Missouri law
that required election officials to print warnings on the ballot next to the name of
any congressional candidate who refused to support term limits after concluding
that such a statute constituted a “‘regulation’ of congressional elections,” as used in
30

1337 Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3325 Filed 12/07/20 Page 31 of 36

the Elections Clause. 531 U.S. 510, 525-26 (2001) (quoting U.S. Const. art. I, § 4,
cl. 1). In Arizona State Legislature v. Arizona Independent Redistricting
Commission, the Supreme Court upheld an Arizona law that transferred
redistricting power from the state legislature to an independent commission after
concluding that “the Legislature,” as used in the Elections Clause, includes any
official body with authority to make laws for the state. 576 U.S. 787, 824 (2015).
In each of these cases, federal courts measured enacted state election laws against
the federal mandates established in the clauses—they did not measure violations of
enacted state elections law against those federal mandates.
By asking the Court to find that they have made out claims under the clauses
due to alleged violations of the Michigan Election Code, Plaintiffs ask the Court to
find that any alleged deviation from state election law amounts to a modification of
state election law and opens the door to federal review. Plaintiffs cite to no case—
and this Court found none—supporting such an expansive approach.
b.

Violation of the Equal Protection Clause

Most election laws will “impose some burden upon individual voters.”
Burdick v. Takushi, 504 U.S. 428, 433 (1992). But “[o]ur Constitution leaves no
room for classification of people in a way that unnecessarily abridges this right [to
vote].” Reynolds v. Sims, 377 U.S. 533, 559 (1964) (quoting Wesberry v. Sanders,
376 U.S. 1, 17-18 (1964)). Voting rights can be impermissibly burdened “by a
31

1338 Case 2:20-cv-01771-PP Filed 12/07/20 Page 32 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3326 Filed 12/07/20 Page 32 of 36

debasement or dilution of the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.” Id. (quoting Reynolds, 377
U.S. at 555).
Plaintiffs attempt to establish an Equal Protection claim based on the theory
that Defendants engaged in “several schemes” to, among other things, “destroy,”
“discard,” and “switch” votes for President Trump, thereby “devalu[ing]
Republican votes” and “diluting” the influence of their individual votes. (ECF No.
49 at Pg ID 3079.)
But, to be perfectly clear, Plaintiffs’ equal protection claim is not supported
by any allegation that Defendants’ alleged schemes caused votes for President
Trump to be changed to votes for Vice President Biden. For example, the closest
Plaintiffs get to alleging that physical ballots were altered in such a way is the
following statement in an election challenger’s sworn affidavit: “I believe some of
these workers were changing votes that had been cast for Donald Trump and other
Republican candidates.”9 (ECF No. 6 at Pg ID 902 ¶ 91 (citing Aff. Articia
Plaintiffs allege in several portions of the Amended Complaint that election
officials improperly tallied, counted, or marked ballots. But some of these
allegations equivocate with words such as “believe” and “may” and none of these
allegations identify which presidential candidate the ballots were allegedly altered
to favor. (See, e.g., ECF No. 6 at Pg ID 902, ¶ 91 (citing Aff. Articia Bomer, ECF
No. 6-3 at Pg ID 1008-10 (“I believe some of these ballots may not have been
properly counted.” (emphasis added))); Pg ID 902-03, ¶ 92 (citing Tyson Aff. ¶ 17)
(“At least one challenger observed poll workers adding marks to a ballot where
there was no mark for any candidate.”).
32

9

1339 Case 2:20-cv-01771-PP Filed 12/07/20 Page 33 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3327 Filed 12/07/20 Page 33 of 36

Bomer, ECF No. 6-3 at Pg ID 1008-1010).) But of course, “[a] belief is not
evidence” and falls far short of what is required to obtain any relief, much less the
extraordinary relief Plaintiffs request. United States v. O’Connor, No. 96-2992,
1997 WL 413594, at *1 (7th Cir. 1997); see Brown v. City of Franklin, 430 F.
App’x 382, 387 (6th Cir. 2011) (“Brown just submits his belief that Fox’s
‘protection’ statement actually meant “protection from retaliation. . . . An
unsubstantiated belief is not evidence of pretext.”); Booker v. City of St. Louis, 309
F.3d 464, 467 (8th Cir. 2002) (“Booker’s “belief” that he was singled out for
testing is not evidence that he was.”).10 The closest Plaintiffs get to alleging that
election machines and software changed votes for President Trump to Vice
10

As stated by the Circuit Court for the District of Columbia Circuit:
The statement is that the complainant believes and
expects to prove some things. Now his belief and
expectation may be in good faith; but it has been
repeatedly held that suspicion is not proof; and it is
equally true that belief and expectation to prove cannot
be accepted as a substitute for fact. The complainant
carefully refrains from stating that he has any
information upon which to found his belief or to justify
his expectation; and evidently he has no such
information. But belief, without an allegation of fact
either upon personal knowledge or upon information
reasonably sufficient upon which to base the belief,
cannot justify the extraordinary remedy of injunction.

Magruder v. Schley, 18 App. D.C. 288, 292, 1901 WL 19131, at *2 (D.C. Cir.
1901).
33

1340 Case 2:20-cv-01771-PP Filed 12/07/20 Page 34 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3328 Filed 12/07/20 Page 34 of 36

President Biden in Wayne County is an amalgamation of theories, conjecture, and
speculation that such alterations were possible. (See e.g., ECF No. 6 at ¶¶ 7-11,
17, 125, 129, 138-43, 147-48, 155-58, 160-63, 167, 171.) And Plaintiffs do not at
all explain how the question of whether the treatment of election challengers
complied with state law bears on the validity of votes, or otherwise establishes an
equal protection claim.
With nothing but speculation and conjecture that votes for President Trump
were destroyed, discarded or switched to votes for Vice President Biden, Plaintiffs’
equal protection claim fails.11 See Wood, 2020 WL 7094866 (quoting Bognet,
2020 WL 6686120, at *12) (“‘[N]o single voter is specifically disadvantaged’ if a
vote is counted improperly, even if the error might have a ‘mathematical impact on
the final tally and thus on the proportional effect of every vote.’”).

“[T]he Voter Plaintiffs cannot analogize their Equal Protection claim to
gerrymandering cases in which votes were weighted differently. Instead, Plaintiffs
advance an Equal Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal treatment. And if
dilution of lawfully cast ballots by the ‘unlawful’ counting of invalidly cast ballots
were a true equal-protection problem, then it would transform every violation of
state election law (and, actually, every violation of every law) into a potential
federal equal-protection claim requiring scrutiny of the government’s ‘interest’ in
failing to do more to stop the illegal activity. That is not how the Equal Protection
Clause works.” Bognet, 2020 WL 6686120, at *11.
34
11

1341 Case 2:20-cv-01771-PP Filed 12/07/20 Page 35 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3329 Filed 12/07/20 Page 35 of 36

2.

Irreparable Harm & Harm to Others

Because “a finding that there is simply no likelihood of success on the merits
is usually fatal[,]” Gonzales v. Nat’l Bd. of Med. Examiners, 225 F.3d 620, 625
(6th Cir. 2000) (citing Mich. State AFL-CIO v. Miller, 103 F.3d 1240, 1249 (6th
Cir. 1997), the Court will not discuss the remaining preliminary injunction factors
extensively.
As discussed, Plaintiffs fail to show that a favorable decision from the Court
would redress their alleged injury. Moreover, granting Plaintiffs’ injunctive relief
would greatly harm the public interest. As Defendants aptly describe, Plaintiffs’
requested injunction would “upend the statutory process for election certification
and the selection of Presidential Electors. Moreover, it w[ould] disenfranchise
millions of Michigan voters in favor [of] the preferences of a handful of people
who [are] disappointed with the official results.” (ECF No. 31 at Pg ID 2227.)
In short, none of the remaining factors weigh in favor of granting Plaintiffs’
request for an injunction.
IV.

Conclusion
For these reasons, the Court finds that Plaintiffs are far from likely to

succeed in this matter. In fact, this lawsuit seems to be less about achieving the
relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic
35

1342 Case 2:20-cv-01771-PP Filed 12/07/20 Page 36 of 37 Document 57-4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3330 Filed 12/07/20 Page 36 of 36

process and their trust in our government. Plaintiffs ask this Court to ignore the
orderly statutory scheme established to challenge elections and to ignore the will of
millions of voters. This, the Court cannot, and will not, do.
The People have spoken.
The Court, therefore, DENIES Plaintiffs’ “Emergency Motion for
Declaratory, Emergency, and Permanent Injunctive Relief” (ECF No. 7.)
IT IS SO ORDERED.
s/ Linda V. Parker
LINDA V. PARKER
U.S. DISTRICT JUDGE
Dated: December 7, 2020

36

1343 Case 2:20-cv-01771-PP Filed 12/07/20 Page 37 of 37 Document 57-4

Exhibit 5

1344

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 4 Document 57-5

Wisconsin Elections Commission
212 East Washington Avenue | Third Floor | P.O. Box 7984 | Madison, WI 53707-7984
(608) 266-8005 | elections@wi.gov | elections.wi.gov

______________________________________________________________________________________________________

MEMORANDUM
TO:

Wisconsin Municipal Clerks
City of Milwaukee Election Commission
Wisconsin County Clerks
Milwaukee County Election Commission

FROM:

Meagan Wolfe
Administrator

DATE:

March 29, 2020

SUBJECT:

Guidance for Indefinitely Confined Electors

Due to the continuing spread of COVID-19, staff of the Wisconsin Elections Commission
(WEC) has received numerous inquiries regarding the application of the indefinitely
confined designation for absentee voters under Wisconsin Statutes. At its meeting of
March 27, 2020, the Commission discussed this issue and adopted the following guidance
related to the use of indefinitely confined status to assist local election officials working
with absentee voters:
1. Designation of indefinitely confined status is for each individual voter to
make based upon their current circumstance. It does not require permanent
or total inability to travel outside of the residence. The designation is
appropriate for electors who are indefinitely confined because of age,
physical illness or infirmity or are disabled for an indefinite period.
2. Indefinitely confined status shall not be used by electors simply as a means
to avoid the photo ID requirement without regard to whether they are
indefinitely confined because of age, physical illness, infirmity or
disability.
This guidance is consistent with and supplements previous statements of the WEC related
to absentee voters who may qualify as indefinitely confined or “permanent” absentee
voters. For ease of reference, on March 24, 2020, the WEC posted the following guidance
in one of its FAQ documents addressing issues related to conducting the Spring Election
in the midst of the COVID-19 pandemic:

Wisconsin Elections Commissioners
Dean Knudson, chair | Marge Bostelmann | Julie M. Glancey | Ann S. Jacobs | Robert Spindell | Mark L. Thomsen
_________________________________________________________________________________________________________
Administrator
12/07/20
Page 2 of 4 Document 57-5
1345 Case 2:20-cv-01771-PP Filed
Meagan
Wolfe

Indefinitely Confined Electors
March 28, 2020
Page 2

Indefinitely Confined Absentee Applications
WEC staff has received numerous questions from clerks about the increase in
voters requesting absentee ballots as indefinitely confined. Wisconsin Statutes
provide the option for a voter to self-certify whether they meet the definition of
indefinitely confined. The statutory definition of "age, illness, infirmity or
disability" does not require any voter to meet a threshold for qualification and
indefinitely confined status need not be permanent. A voter with a broken leg
or one recovering from surgery may be temporarily indefinitely confined and
may use that status when voting during that period of time.
We understand the concern over the use of indefinitely confined status and do
not condone abuse of that option as it is an invaluable accommodation for
many voters in Wisconsin. During the current public health crisis, many voters
of a certain age or in at-risk populations may meet that standard of indefinitely
confined until the crisis abates. We have told clerks if they do not believe a
voter understood the declaration they made when requesting an absentee ballot,
they can contact the voter for confirmation of their status. They should do so
using appropriate discretion as voters are still entitled to privacy concerning
their medical and disability status. Any request for confirmation of indefinitely
confined status should not be accusatory in nature.
There may be a need to do some review of the absentee voting rolls after this
election to confirm voters who met the definition of indefinitely confined
during the public health crisis would like to continue that status. WEC staff
has already discussed this possibility and may be able to provide resources to
assist clerks with these efforts.
This guidance is based upon applicable statutes. An elector who is indefinitely confined
because of age, physical illness or infirmity or is disabled for an indefinite period may by
signing a statement to that effect require that an absentee ballot be sent to the elector
automatically for every election. Wis. Stat. § 6.86(2)(a). The absentee ballot request form
asks voters to certify to their indefinitely confined status. Statutes do not establish the
option to require proof or documentation from indefinitely confined voters. Clerks may
tactfully verify with voters that the voter understood the indefinitely confined status
designation when they submitted their request but they may not request or require proof.
An elector who qualifies as indefinitely confined “may, in lieu of providing proof of
identification, submit with his or her absentee ballot a statement signed by the same
individual who witnesses voting of the ballot which contains the name and address of the
elector and verifies that the name and address are correct.” Wis. Stat. 6.87(4)(b)2. Thus,
indefinitely confined electors may satisfy the photo ID requirement by obtaining the
signature of a witness on the absentee ballot certificate envelope.
Electors who are indefinitely confined due to age, physical illness, infirmity or disability,
may be unable to obtain a current photo ID or make a copy to submit with their written
absentee ballot request or upload an image of their photo ID with their electronic request
through MyVote Wisconsin. If a clerk is contacted by an elector in such circumstances,

1346

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 4 Document 57-5

Indefinitely Confined Electors
March 28, 2020
Page 3

WEC recommends discussing the options and making the voter aware of the criteria for
qualifying as an indefinitely confined elector.
If any elector is no longer indefinitely confined, they shall so notify the municipal clerk.
Wis. Stat. 6.86(2)(a). An elector also loses indefinitely confined status if they do not vote
in a Spring or General Election and do not respond to a mailing from the municipal clerk
asking whether they wish to continue automatically receiving absentee ballots. Wis. Stat.
6.86(2)(b). Finally, the municipal clerk shall remove the name of any elector from the list
of indefinitely confined electors upon receipt of reliable information that an elector no
longer qualifies for that designation and service. The clerk shall notify the elector of such
action not taken at the elector's request within 5 days, if possible. Wis. Stat. § 6.86(2)(b).
If you have questions regarding this communication, please contact the Help Desk at 608261-2028 or elections@wi.gov.

1347

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 4 Document 57-5

Exhibit 6

1348

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 4 Document 57-6

Case: 3:20-cv-00249-wmc Document #: 130 Filed: 03/31/20 Page 2 of 4
OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

March 31, 2020

To:
David R. Gault
Marcia A. MacKenzie
Dane County Corporation Counsel
Room 419
210 Martin Luther King Jr. Blvd.
Madison, WI 53703-3345
Lisa M. Lawless
Husch Blackwell, LLP
555 E. Wells St., Ste. 1900
Milwaukee, WI 53202-3819

Eric M. McLeod
Lane E. B. Ruhland
Husch Blackwell LLP
P.O. Box 1379
Madison, WI 53701-1379
Misha Tseytlin
Kevin M. LeRoy
Troutman Sanders LLP
1 N. Wacker Dr., Ste. 2905
Chicago, IL 60606

You are hereby notified that the Court has entered the following order:
2020AP557-OA

Jefferson v. Dane County

On March 27, 2020, petitioners, Mark Jefferson and the Republican Party of Wisconsin,
filed a petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70, a
supporting legal memorandum, and a motion for temporary injunctive relief. On that same date,
the court ordered the named respondents, Dane County and Scott McDonell, in his official capacity
as Dane County Clerk, to file a response to the original action petition and the motion for temporary
injunctive relief by 1:00 on March 30, 2020. The court has reviewed the filings of the parties and
now addresses the motion for temporary injunctive relief.
When we have considered whether to grant temporary injunctive relief, we have required
a movant to show (1) a reasonable probability of success on the merits; (2) a lack of an adequate
remedy at law; (3) that the movant will suffer irreparable harm in the absence of an injunction; and
(4) that a balancing of the equities favors issuing the injunction. See, e.g., Pure Milk Products
Coop. v. National Farmers Org., 90 Wis. 2d 781, 800, 280 N.W.2d 691 (1979); Werner v. A.L.
Grootemaat & Sons, Inc., 80 Wis. 2d 513, 520, 259 N.W.2d 310 (1977). The decision whether to
grant an injunction is a discretionary one, although injunctions are not to be issued lightly. Werner,
80 Wis. 2d at 520.

1349

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 4 Document 57-6

Case: 3:20-cv-00249-wmc Document #: 130 Filed: 03/31/20 Page 3 of 4
Page 2
March 31, 2020
2020AP557-OA

Jefferson v. Dane County

The temporary injunction the petitioners seek would order respondent, Scott McDonell, the
Dane County Clerk, to remove a March 25, 2020 Facebook post in which he indicated, inter alia,
that all Dane County voters could declare themselves to be "indefinitely confined" under Wis. Stat.
§ 6.86(2) due to illness solely because of the Wisconsin Department of Health Services Emergency
Order #12 (the Safer at Home Order) and difficulties in presenting or uploading a valid proof of
identification, thereby avoiding the legal requirement to present or upload a copy of the voter's
proof of identification when requesting an absentee ballot.1 The petitioners further ask this court
to order respondent McDonell and respondent Dane County to issue new statements setting forth
the statutory interpretation proposed by the petitioners.
Although respondents do not represent that McDonell's original March 25, 2020 post has
been removed, they argue that McDonell's later posting renders the petitioners' motion moot
because McDonell has now posted the Wisconsin Elections Commission’s (WEC) guidance on his
Facebook page. They also argue that the petitioners' petition and motion for temporary relief
cannot go forward in this court because they have not exhausted their administrative remedies by
first filing a complaint with the WEC under Wis. Stat. § 5.06(1) and (2).
McDonell's March 25, 2020, advice was legally incorrect. In addition, McDonell's
subsequent Facebook posting does not preclude McDonell's future posting of the same erroneous
advice. Furthermore, his erroneous March 25, 2020 Facebook posting continues distribution on
the internet.
Accordingly, we conclude that clarification of the purpose and proper use of the
indefinitely confined status pursuant to Wis. Stat. § 6.86(2) as well as a temporary injunction are
warranted.
In regard to clarification, the WEC has met and has issued guidance on the proper use of
indefinitely confined status under Wis. Stat. § 6.86(2) in its March 29, 2020 publication, "Guidance
for Indefinitely Confined Electors COVID-19." The WEC guidance states as follows:
1. Designation of indefinitely confined status is for each individual voter to make
based upon their current circumstances. It does not require permanent or total
inability to travel outside of the residence. The designation is appropriate for
electors who are indefinitely confined because of age, physical illness or
infirmity or are disabled for an indefinite period.
2. Indefinitely confined status shall not be used by electors simply as a means to
avoid the photo ID requirement without regard to whether they are indefinitely
confined because of age, physical illness or infirmity, or disability.
We conclude that the WEC's guidance quoted above provides the clarification on the purpose and
proper use of the indefinitely confined status that is required at this time.
We further determine that the petitioners have demonstrated a reasonable probability of
success on the merits, at least with respect to certain statements in McDonell's March 25th
1

Petitioners note that the Milwaukee County Clerk issued nearly identical advice.
1350 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 4 Document 57-6

Case: 3:20-cv-00249-wmc Document #: 130 Filed: 03/31/20 Page 4 of 4
Page 3
March 31, 2020
2020AP557-OA

Jefferson v. Dane County

Facebook post. Voters may be misled to exercise their right to vote in ways that are inconsistent
with Wis. Stat. § 6.86(2). Namely, McDonell appeared to assert that all voters are automatically,
indefinitely confined solely due to the emergency and the Safer at Home Order and that voters
could therefore declare themselves to be indefinitely confined when requesting an absentee ballot,
which would allow them to skip the step of presenting or uploading a valid proof of identification.
Indeed, we do not see how the respondents could prevail with an argument that such statements in
the March 25th post constitute an accurate statement of the relevant statutory provisions.
NOW THEREFORE, IT IS ORDERED that the petitioners' motion for temporary
injunctive relief is granted and we order McDonell to refrain from posting advice as the County
Clerk for Dane County inconsistent with the above quote from the WEC guidance.
DANIEL KELLY, J., did not participate.
Sheila T. Reiff
Clerk of Supreme Court

1351

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 4 Document 57-6

Exhibit 7

1352

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 3 Document 57-7

MEMORANDUM
DATE:

October 18, 2016

TO:

Wisconsin Municipal Clerks and the Milwaukee City Elections Commission
Wisconsin County Clerks and the Milwaukee County Elections Commission

FROM:

Michael Haas, Interim Elections Administrator
Diane Lowe, Lead Elections Specialist

SUBJECT:

AMENDED: Missing or Insufficient Witness Address on Absentee Certificate
Envelopes

PLEASE NOTE: The previous guidance on this topic, which was issued on October 4, 2016, has
been modified by the WEC and is replaced with the guidance below.
One of the components of 2015 Wisconsin Act 261 is the requirement for an absentee ballot witness to
provide their address when signing the absentee certificate envelope.
SECTION 78. 6.87 (6d) of the statutes is created to read:
6.87 (6d) If a certificate is missing the address of a witness, the ballot may not be counted.
In implementing this requirement, the first question that comes to mind is “What constitutes an
address?” The Wisconsin Elections Commission (WEC) has set a policy that a complete address
contains a street number, street name and name of municipality. But in many cases, at least one
component of the address could be missing; usually the municipality.
The purpose of this memorandum is to offer guidance to assist you in addressing this issue. The WEC
has determined that clerks must take corrective actions in an attempt to remedy a witness address error.
If clerks are reasonably able to discern any missing information from outside sources, clerks are not
required to contact the voter before making that correction directly to the absentee certificate envelope.
Clerks may contact voters and notify them of the address omission and the effect if the deficiency is not
remedied but contacting the voter is only required if clerks cannot remedy the address insufficiency
from extrinsic sources. When contacting a voter, you should advise that their ballot will not be counted
with an incomplete address so that they can take action and also prevent a similar issue in the future.
Clerks shall offer suggestions for correcting the certificate envelope to ensure the voter’s absentee ballot
will not be rejected.

1353

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 3 Document 57-7 App. 198

AMENDED: Missing/Insufficient Witness Address on Absentee Certificate Envelopes
October 18, 2016
Page 2

Clerks shall assist in rehabilitating an absentee certificate that does not contain the street number and
street name (or P.O. Box) and the municipality of the witness address. If a clerk adds information to an
absentee certificate, either based on contact with the voter or based on other sources, clerks shall
indicate such assistance was provided by initialing next to the information that was added on the
absentee certificate. The Commission recognized the concern some clerks have expressed about altering
information on the certificate envelope, especially in the case of a recount. On balance, in order to
promote uniformity in the treatment of absentee ballots statewide, the Commission determined that
clerks must attempt to obtain any information that is missing from the witness address and document
any addition by including their initials.
In short, the Commission’s guidance is that municipal clerks shall do all that they can reasonably do to
obtain any missing part of the witness address. Those steps may include one or more of the following
options:
1. The clerk is able to reasonably discern the missing address or address component by information
appearing on the envelope or from some other source, such as:
o The voter has provided his or her complete address and the clerk has personal knowledge that the
witness resides at the same address as the voter.
o The clerk has personal knowledge of the witness and knows his/or her address.
o The voter’s complete address appears on the address label, and the witness indicates the same
street address as the voter.
o The clerk is able to utilize lists or databases at his or her disposal to determine the witness’s
address.
2. The voter or witness may wish to appear in person to add the missing information, or provide the
address information by phone, fax, email or mail. The voter may provide the address separately as
an alternative to returning the certificate envelope and having the voter mail it back again as outlined
below.
3. The voter may request that the clerk return the certificate envelope so the voter can personally add
the witness address.
o Be sure to include a self-addressed stamped envelope in which the voter may return the
certificate envelope containing the ballot. The post office does not approve of placing another
stamp over a cancelled stamp. Contact your postmaster or a Mail Piece Design Analyst before
attempting to re-stamp or re-meter the certificate envelope. Also, note that the U.S. Postal
Service is advising that voters mail absentee ballots at least one week before Election Day to
accommodate new delivery standards. We suggest advising the voter of the importance of
timely mailing if the voter wishes to have the certificate envelope mailed back to them.
4. The voter may wish to spoil the original ballot and vote a new one.
If the request to spoil the ballot is within the proper time frame, the clerk mails a second ballot
and new certificate envelope to the voter. (See procedure for Spoiling and Replacement Ballots,
beginning on page 109 of Election Administration Manual.)
I hope this guidance is helpful as you continue to issue and receive absentee ballots. Thank you for your
efforts to assist voters in completing the absentee certificate sufficiently so their votes may be counted.
If you have questions, please contact the Elections Help Desk at 608-261-2028 or elections@wi.gov
1354 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 3 Document 57-7 App. 199

Exhibit 8

1355

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 4 Document 57-8

i. The clerk is not required to provide postage on certificate
envelopes that will be returned from outside of the United
States.
g. For military and overseas voters, use the postage paid envelopes; EL-120m
mailer envelope and the EL-122m certificate envelope.
6. Mail the Absentee Carrier Envelope to the mailing address provided by the
absentee elector within one business day of receiving the request. Wis. Stat.
§ 7.15(1)(cm).
7. The clerk maintains the Absentee Ballot Log (EL-124).
a. The Absentee Ballot Log (EL-124) is used to track the events that
occur during the absentee ballot process (e.g. application received,
ballot issued, ballot canceled, 2nd ballot issued, ballot received, ballot
counted, etc.)
b. The Absentee Ballot Log (EL-124) enables the clerk to track any
problems with the absentee certificate envelope (missing certificate,
voter signature, witness signature and address, or two SVD
signatures) and communicate this information to the election
inspectors so they can reject the ballot if the error is not corrected by
8:00 p.m. on Election Day.
c. Municipal clerks who maintain their own WisVote data may also
track absentee ballots and print ballot labels in WisVote.
d. The Absentee Ballot Log (EL-124) is sent to the polling place with the
absentee ballots on Election Day.
8. An absentee ballot is marked by an absent voter, and sealed in an Absentee
Ballot Certificate Envelope (EL-122). The Absentee Ballot Certificate
Envelope (EL-122) is then completed and signed by the absentee voter,
witnessed by an adult U.S. Citizen, and mailed or delivered in person to the
municipal clerk. Wis. Stat. § 6.87(4)(b). Note: The witness for absentee
ballots completed by Military, Permanent and Temporary Overseas voters,
must be an adult, but does not have to be a U.S. Citizen.
a. The witness must include their address.

Case 2:20-cv-01771-PP
Filed 12/07/20 Page 3 of 4 Document 57-8 App. 201
Election Administration
Manual
1357
for Wisconsin Municipal Clerks

b. Clerks may add a missing witness address using whatever means
are available. Clerks should initial next to the added witness
address.
Correcting Defective Absentee Certificate Envelopes

1. The municipal clerk reviews each absentee certificate envelope when it is
returned to the clerk’s office for any errors (e.g. missing certificate, voter
signature, witness signature and address, or two SVD signatures).
2. If there is an error, the clerk should contact the voter, if possible. Wis. Stat.
§ 6.87(9).
a. The voter has the option to correct the absentee certificate envelope in
the clerk’s office, by mail, or at the polling place/central count
location on Election Day.
i. If the voter wants the original ballot mailed back to them, the
clerk shall enclose the original ballot in its unopened certificate

Case 2:20-cv-01771-PP
Filed 12/07/20 Page 4 of 4 Document 57-8 App. 202
Election Administration
Manual
1358
for Wisconsin Municipal Clerks

Exhibit 9

1359

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 6 Document 57-9

Wisconsin Elections Commission
State of Wisconsin
212 E. Washington Ave., Third Floor  Madison, WI 53703  elections@wi.gov  (608) 266-8005  http://elections.wi.gov

FOR IMMEDIATE RELEASE:
November 10, 2020

FOR MORE INFORMATION, CONTACT:
Reid.Magney@wi.gov or 608-267-7887

Correcting Misinformation about Wisconsin’s Election
MADISON, WI – In the week after the presidential election, misinformation has circulated on
social media and political websites raising unfounded rumors about the integrity of Wisconsin’s
election results.
“Wisconsin’s election was conducted according to law and in the open,” said Meagan Wolfe,
Wisconsin’s chief election official. “While the results are still unofficial and are currently being
triple checked as part of the canvass and certification process, we have not seen any credible
information to cast any doubt on those unofficial results.”
Wolfe further stated, “When issues are reported to our office, we take them very seriously. We
look into each allegation and request evidence from parties involved. At this time, no evidence
has been provided that supports allegations of systemic or widespread election issues.”
“Unfortunately, we are seeing many concerns that result from this unsubstantiated
misinformation. We want Wisconsin’s voters to know we hear their concerns and to provide
facts on these processes to combat the rumors and misinformation,” Wolfe said.
Every step of the election process is publicly observable and transparent, Wolfe said. This
includes voting at the polls on Election Day and the counting of absentee ballots. It also includes
the canvass and certification of the tally that is happening right now in counties across the state.
Every ballot cast in Wisconsin has a paper audit trail. Voting equipment is randomly selected for
audit after the presidential election and the paper trail is audited against the electronic vote totals;
this process is conducted as part of a public meeting. If there is a recount, these materials will
again be analyzed, as they were in 2016.
“Election results in Wisconsin are triple-checked for accuracy before they are certified,” Wolfe
said. “Your municipal and county clerks, and the staff of the Wisconsin Elections Commission
are looking at everything to ensure the will of the voters is carried out and to affirm that only
valid ballots were cast and counted.”
In response to the misinformation, the WEC today released a list of the top facts about
Wisconsin elections. This list is in addition to last week’s news release which addressed rumors
like Wisconsin having more votes than registrations and ballots being added to the unofficial
totals on the morning of November 4, that release can be found here:
https://elections.wi.gov/node/7235.

1360

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 6 Document 57-9

1. Wisconsin voters can trust their vote was counted.
“Many voters are visiting our MyVote Wisconsin website to check their records,” said Wolfe.
“As allowed by state law, it can take 45 days after a presidential election for local clerks to
record everyone’s paper registrations and voter participation into the electronic statewide voter
database. If you do not see your participation or registration recorded right away, don’t worry it
takes time to get all of the data entered into the system.
A message on the MyVote.wi.gov website informs voters how long it can take to enter
participation. Wolfe said the MyVote website absentee ballot tracking feature will continue to
show voters whether their absentee ballot arrived.
Wolfe noted that in the last three presidential elections, Wisconsin had among the lowest rates of
mail ballot rejections and other problems in the nation, according to the Elections Performance
Index, a state-by-state data monitoring project maintained by the Massachusetts Institute of
Technology.
However, voters should note that their record will never contain information on how you voted.
State and federal law protect voter anonymity. Once you cast your ballot, who you voted for can
not be tracked back to you. Your paper ballot is always anonymous, and it cannot be tied to your
voter participation record.
2. Minor news media errors in reporting Wisconsin’s unofficial results do not affect the
outcome of the election.
“Several people have contacted us about discrepancies they may have seen in unofficial results
on media websites or TV broadcasts on Election Night,” Wolfe said. “They believe that these
reporting errors are evidence that vote totals were somehow changed or flipped. Nothing could
be farther from the truth.”
Wolfe explained that Wisconsin does not have a statewide system for reporting unofficial results
on Election Night, and there is no central official website or feed where results are reported.
State law requires that counties post the unofficial election night numbers for each polling place.
The unofficial statewide and county results numbers that the public sees on Election Night and
the days thereafter come from the news media, including the Associated Press, which collects
them from the 72 county clerks’ websites.
One false rumor circulating now is that results were flipped in Rock County on Election Night,
based on screenshots from FOXNews.com. According to the Associated Press, there was an
error that occurred in the way they gathered results from Rock County’s website which caused
AP to transpose results for Joe Biden and Donald Trump. An AP correspondent noticed the error
within a few minutes and corrected it, according to a statement from the newswire:
Patrick Maks, media relations manager for The Associated Press said, “There was a brief
technical error in AP’s collection of the vote count in Rock County, Wisconsin, that was quickly

1361

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 6 Document 57-9

corrected. AP has myriad checks and redundancies in place to ensure the integrity of the vote
count reporting. We are confident in what we have delivered to customers.”
https://www.politifact.com/factchecks/2020/nov/10/eric-trump/no-rock-county-did-not-haveglitch-stole-votes-tru/
The AP’s error in no way reflects any problem with how Rock County counted or posted
unofficial results. The WEC has confirmed with Rock County that their unofficial results
reporting was always accurate.
There have been similar false claims about numbers on a CNN broadcast around 4 a.m.
Wednesday when the city of Milwaukee’s absentee ballot results were added to ballots cast at the
polls on Election Day.
“Voters should be extremely cautious about drawing any conclusions based on changes in
numbers during Election Night reporting,” Wolfe said. “The news media is doing its best to
report accurate results, but sometimes they make minor mistakes. These errors have nothing to
do with Wisconsin’s official results, which are triple checked at the municipal, county and state
levels before they are certified.”
3. Absentee ballots were counted properly, regardless of when the results were reported.
There are 39 municipalities which count their voters’ absentee ballots at a central location.
Because several municipalities could not finish processing their absentee ballots by the time the
polls closed at 8 p.m. on Election Day, there was a delay in reporting those results to county
clerks. This was especially true in major cities including Milwaukee, Green Bay and Kenosha,
where final unofficial results were reported after 3 a.m. Wednesday.
“Due to the pandemic and the high number of absentee ballots, it took until early Wednesday for
all the unofficial results to come in,” said Wolfe. “It does not mean something went wrong – it
means election officials did their jobs and made sure every valid ballot was counted.”
In Wisconsin, voters must be registered before they can request an absentee ballot. Voters then
need to submit a valid request for an absentee to their municipal clerk who sends the ballot and
tracks it in the statewide database and using USPS intelligent mail barcodes. When a voted
ballot is received by your clerk, it has to be recorded that it was received. On Election Day and
night, only ballots issued to registered voters, with a valid request on file, and with completed
certificates signed by the voter and their witness, are counted. If any of these elements are
missing, the ballot is rejected and is not counted.
Some central count municipalities, including Milwaukee and Green Bay, took extra steps to
provide the public and the media with live webcams of the absentee tabulation, and the physical
locations were all open to the public and the media. Representatives of both major political
parties were present, as well as independent poll watchers.

1362

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 6 Document 57-9

“Despite this transparency, we have seen unfounded allegations that clerks and poll workers
stopped counting, that they mysteriously found absentee ballots in the middle of the night, or that
all the votes on absentee ballots were only for one candidate,” Wolfe said. “It’s just not true.”
The Wisconsin Elections Commission anticipated there would be misinformation about late
absentee ballot reports in central count municipalities. To proactively provide insight into the
process of counting and reporting absentee ballot totals, the WEC put out news releases in
advance of the election and even produced a video about how results get reported.
https://elections.wi.gov/2020
4. The pens or markers used by some voters did not prevent their ballots from being
counted.
Wolfe said that voters have contacted the WEC because of posts they saw on social media about
the use of felt tip pens or “sharpies” on ballots. “Voters do not need to worry, their ballots were
counted,” Wolfe said. “Voting equipment in Wisconsin is tested at both the local, state, and
federal level for all kinds of pens and other marking devices. While we recommend that voters
use the pen or marking device provided at their polling place or as instructed in their absentee
ballot, the use of a felt-tip pen doesn’t invalidate a ballot.”
5. Wisconsin ballots do not have any special encoding with invisible watermarks or
blockchain codes.
One of the stranger claims after the election was that legitimate ballots had been specially
encoded by one of the political parties so any illegitimate ballots could be rejected.
Wisconsin county clerks are responsible for printing ballots which are distributed to municipal
clerks, Wolfe said. “The secrecy of your ballot is safe,” Wolfe said. “Clerks do not print any
watermarks or codes on them that would identify any voter or political party.” Ballot anonymity
is a requirement of the law, and what candidate a voter chose is not a part of their record. The
state of Wisconsin also does not track party affiliation. Local election officials do not know
voter’s party preference when issuing ballots.
6. Clerks and poll workers followed state law in curing absentee ballot certificates that
were missing address information.
Another unfounded claim is that just before the election the WEC illegally told clerks they could
add witness addresses to absentee ballot certificate envelopes. Here are the facts:
•
•

1363

The Wisconsin Elections Commission’s guidance permitting municipal clerks to fix
missing witness address components based on reliable information has been in effect
since October 2016. There was no new guidance or change to this requirement.
Voter and witness signatures can only be added by the voter and the original witness.
Signatures can never be added by poll workers (unless they were the original witness
during in-person absentee).

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 6 Document 57-9

•
•
•
•

•

The motion to approve the guidance was made by Republican members of the
Commission in 2016 and it passed unanimously.
The guidance has been in effect for 11 statewide elections, including the 2016
presidential and presidential recount, and no one has objected to it until now.
Guidance to clerks that was posted on October 19, 2020, simply restates this earlier
guidance.
The law says that a witness address needs to be present for the certificate to be accepted
and the ballot to be counted, it does not specify who affixes the address (for example,
voter address is added by the clerk on the certificate envelope). If an absentee certificate
does not contain a witness address (i.e. the witness forgot or the clerk cannot add it based
on reliable information) then the ballot cannot be counted.
There were no corrections made to “ballots” as some articles and posts claim. These
were witness addresses added to the certificate, in accordance with the 2016 directive.
They are also distinguishable (initials, red pen, etc.) and done as part of the publicly
observable process.

7. The WEC followed the law and court orders about the ERIC Movers list.
There have been unfounded allegations that the WEC violated the law by not removing
approximately 232,000 voters from the registration list because they may have moved.
The Wisconsin Court of Appeals ruled in February 2020 that WEC could not remove voters from
the registration list. The court case, Zignego v. Wisconsin Elections Commission, was argued
before the Wisconsin Supreme Court in September and no decision has been issued yet. The
WEC will follow the Supreme Court’s decision once it is issued.
The current process requires anyone who may have moved to affirm their address when
receiving a ballot. These voters have a watermark next to their name in the poll book and are
asked to sign to affirm that they still live there. If any voter has moved, they are directed to
register to vote before they can be issued a ballot.

###
The Wisconsin Elections Commission is responsible for administration and enforcement of election laws in
Wisconsin. The Commission is made up of six Commissioners – four appointed directly by the State Senate
Majority Leader, Speaker of the Assembly and the Minority Leaders in the State Senate and Assembly. The
remaining two Commissioners are by the Governor with confirmation by the State Senate from lists of former
municipal and county clerks submitted by the legislative leadership in each party.

1364

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 6 Document 57-9

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS
COMMISSION, and its members ANN S.
JACOBS, MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

DEFENDANTS WISCONSIN ELECTIONS COMMISSION
AND ITS MEMBERS’ SUBMISSION OF
UNREPORTED AUTHORITY PURSUANT TO CIVIL L.R. 7(J)

Defendants Wisconsin Elections Commission, Ann S. Jacob, Mark L.
Thomsen, Marge Bostelman, Julie M. Glancey, Dean Knudson, and Robert F.
Spindell, Jr., by their attorneys, and pursuant to Civil L. R. 7(j), hereby submit
the following attached unreported authority cited in both Defendant
Commission and Commissioner’s Response Opposing Plaintiffs’ Motion for a
Temporary Restraining Order and Preliminary Injunction and Defendants
Wisconsin Elections Commission and Its Members’ Brief in Support of Motion

1365

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 3 Document 58

to Dismiss, both of which are filed herewith. The unreported authority cited in
both briefs is the same and consists of the following cases:
1.

Martel v. Condos, -- F. Supp. 3d. --, 2020 WL 5755289
(D. Vt. 2020);

2.

Moore v. Circosta, -- F. Supp. 3d --, 2020 WL 6063332
(M.D.N.C. 2020);

3.

Donald J. Trump for Pres., Inc. v. Cegavske, -- F. Supp. 3d --,
2020 WL 5626974 (D. Nev. 2020);

4.

Bognet v. Sec’y Commonwealth of Pennsylvania, -- F.3d --,
2020 WL 6686120 (3d. Cir. Nov. 13, 2020);

5.

Donald J. Trump for President, Inc. v. Boockvar,
No. 20-CV-966, 2020 WL 5997680 (W.D. Pa. Oct. 10, 2020);

6.

Donald J. Trump for President, Inc. v. Pennsylvania,
No. 20-3371, 2020 WL 7012522 (3d Cir. Nov. 27, 2020).

7.

Wood v. Raffensperger, No. 20-14418, 2020 WL 7094866
(11th Cir. Dec. 5, 2020)

8.

King v. Whitmer, No. 20-13134 (E.D. Mi. Dec. 7, 2020)

Dated this 7th day of December, 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149

1366

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 3 Document 58

JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1367

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 3 Document 58

Martel v. Condos, --- F.Supp.3d ---- (2020)
2020 WL 5755289

2020 WL 5755289
Only the Westlaw citation is currently available.
United States District Court, D. Vermont.

Tracey MARTEL, Robert Frenier,
Brian Smith, Raoul Beaulieu,
and Mary Beausoleil, Plaintiffs,
v.
James C. CONDOS, in his official
capacity as the Secretary of
State of Vermont, Defendant.
Case No. 5:20-cv-131
|
Signed 09/16/2020
Synopsis
Background: Five registered voters brought action to
challenge Secretary of State directive that an election ballot be
mailed to every active voter on the statewide voter checklist,
alleging that the directive was unconstitutional, ultra vires,
and contrary to law and seeking an injunction rescinding the
directive and preventing Secretary of State from issuing mailin ballots. Voter filed motion for preliminary injunction, and
Secretary of State filed motion to dismiss.

The District Court, Geoffrey W. Crawford, Chief Judge, held
that voters lacked concrete and particularized injury in fact
necessary for standing.
Motion for injunction denied, case dismissed.
Attorneys and Law Firms
David A. Warrington, Esq., Pro Hac Vice, Kutak Rock LLP,
Richmond, VA, Deborah T. Bucknam, Esq., Bucknam Law
PC, Walden, VT, Harmeet K. Dhillon, Esq., Pro Hac Vice,
Dhillon Law Group Inc., San Francisco, CA, Mark P. Meuser,
Esq., Pro Hac Vice, Dhillon Law Group Inc., San Franciso,
CA, for Plaintiffs.
David R. Groff, Esq., Philip A. Back, Esq., Office of the
Vermont Attorney General, Montpelier, VT, for Defendant.

1368

ORDER ON MOTION FOR PRELIMINARY
INJUNCTION AND ON MOTION TO DISMISS
Geoffrey W. Crawford, Chief Judge
*1 In the spring of 2020, faced with the crisis resulting from
the spread of COVID-19 infection, the Vermont legislature
passed two bills that changed Vermont election law for
the 2020 primary and general elections. See 2020 Vt.
Acts & Resolves Nos. 92 and 135 (Act 92 and Act 135,
respectively). These became law in July 2020 after the
governor declined to sign or veto the measures. See Letter
from Philip B. Scott, Governor, to the Vt. Gen. Assembly
(July 2, 2020), https://governor.vermont.gov/sites/scott/files/
documents/Vermont% 20General% 20Assembly% 20Letter
% 20re% 20S.348.pdf. Vermont Secretary of State James
C. Condos issued a Directive on July 20, 2020 exercising
the authority conferred upon him by the two Acts. (Doc.
1-1.) The Directive includes, among other things, a provision
stating that, for the November general election, “[a] ballot
will be mailed to every active voter on the statewide voter
checklist.” (Doc. 1-1 at 4.)
The above-captioned plaintiffs have filed a complaint against
Secretary Condos seeking a declaration that the Directive is
unconstitutional, ultra vires, and contrary to law. (Doc. 1 at
25.) They also seek an injunction rescinding the Directive and
preventing Secretary Condos from distributing mail-in ballots
as contemplated by the Directive. (Id.) Currently pending is
Plaintiffs’ Motion for a Preliminary Injunction (Doc. 2) and
Defendant's Motion to Dismiss (Doc. 10). The court held a
hearing on the motions on September 15, 2020.

Background
The provisions in Acts 92 and 135 principally at issue in
this case concern the legislature's decision to authorize the
Secretary of State to require local election officials to send
ballots by mail to all registered voters. Act 92 states, in
pertinent part:
In the year 2020, the Secretary of State is authorized, in
consultation and agreement with the Governor, to order or
permit, as applicable appropriate elections procedures for
the purpose of protecting the health, safety and welfare of
voters, elections workers, and candidates in carrying out
elections including:

Case
Filedto12/07/20
1 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

58-1

Ex. 1

1

Martel v. Condos, --- F.Supp.3d ---- (2020)
2020 WL 5755289

(1) requiring mail balloting by requiring town clerks to
send ballots by mail to all registered voters ....
Act 92, § 3(a). Act 135 amended Act No. 92. It removed the
requirement of “agreement” with the Governor. Act 135, § 1.
It also added a new subsection (c):
If the Secretary of State orders or permits the mailing
of 2020 General Election ballots to all registered voters
pursuant to subsection (a) of this section, the Secretary
shall:
(1) inform the Governor as soon as reasonably practicable
following the Secretary's decision to do so; and
(2) require the return of those ballots to be in the manner
prescribed by 17 V.S.A. § 2543 (return of ballots) as set
forth in Sec. la of this act, the provisions of which shall
apply to that return.
Id.1 Other changes in election practices authorized by the Acts
include provisions for collecting and counting mail-in ballots
early, permitting drive-up, car window collection of ballots,
and extending both voting hours and the time to process and
count ballots. Act 92, § 3(a)(1–6); Act 135 § 1 (a)(1–6).
1

Paragraph (2) of subsection (c) contains a mistake.
Section 2543 of Title 17 sets out procedures for returning
early ballots to local election officials. Sec. 1a appeared
in prior versions of Act No. 135. It contained procedures
restricting so-called “ballot harvesting” by third party
organizations. Section la was dropped from the final
version of Act 135 and never enacted. The reference to
it is a legislative drafting mistake which was noted in the
Governor's July 2, 2020 letter as a technical error. It refers
to a proposed change in the law which was not ultimately
passed. Such mistakes are unhelpful in understanding
statutory language, but this one does not have any effect
on the other provisions of Acts 92 and 135. The court
will apply the other provisions of the Acts despite the
mistaken reference to the (non-existent) Section 1a.

*2 In response to the legislative initiative, the Secretary
of State issued a Directive on July 20, 2020 exercising the
authority conferred upon him by the two Acts. (Doc. 1-1.)
The Directive states that it is issued “[n]otwithstanding any
provisions of law contained in Title 17 of the Vermont Statutes
Annotated to the contrary” and “pursuant to the authority
granted to the Secretary of State by Act 92 (2020) and Act
135 (2020).” (Id. at 1.) The Directive describes a variety
of measures for both the August primary and November
general elections, including new procedures for ballot returns,
processing, outdoor and drive-through polling places, outdoor

1369

ballot handling, overseas voters, changes of polling places,
qualifications of election officials, home delivery of ballots,
mask requirements, and voting in person after receiving a
ballot by mail. (See id. at 1–4.) Regarding ballot returns,
the Directive states that, with four enumerated exceptions,
“[b]allots may not be returned to the Clerk by any candidate
whose name appears on the ballot for that election, or any
campaign staff member of any such candidate.” (Id. at 1.)
Regarding changes to polling places, the Directive states that
“[t]he location of a polling place may be changed no less than
15 days prior to the election.” (Id. at 3.)
The Directive contains the following provision for “mailed
ballots” in the November general election:
A ballot will be mailed to every active voter on the
statewide voter checklist. “Active” voters are any voters
that have not been sent a challenge letter by the BCA asking
the voter to affirm their residence, or who have responded
to any such letter and have affirmed their residence.
• Ballots will be mailed to all active registered voters
starting Friday, September 18.
• Ballots will be mailed or otherwise delivered to
all military and overseas voters no later than the
September 19 deadline mandated by federal law.
• All ballots will be mailed from a central location by the
Secretary of State's Office.
• For mailing purposes, the Secretary of State will use
the mailing address contained in any pending request
for a General Election ballot first, and if none will use
the mailing address in the voter's record second, and
if none the legal address in the voter's record.
• The issue date for all ballots will be recorded in
the statewide election management system by the
Secretary of State on a batch basis as they are sent.
Clerks will only by required to record the date that
ballots are returned. Clerks will be required to enter
the request, issue, and return date for any ballots
requested by voters after the statewide mailing is sent,
including for those voters who may register after that
date.
• Postage for the mailing of ballots and the return of
ballots to the Clerks by voters will be paid by the
Secretary of State's office. All envelopes will be prepaid.

Case
Filedto12/07/20
2 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

58-1

Ex. 1

2

Martel v. Condos, --- F.Supp.3d ---- (2020)
2020 WL 5755289

(Id. at 4–5.)
After issuing the Directive and in preparation for the August
primary election, the Secretary caused absentee primary
ballot request forms printed on postcards to be sent to
every person listed on the statewide voter checklist. (Doc.
1 ¶ 42.) According to the Complaint, the issuance of the
postcards “was intended to be a test of the process by
which Condos intended to mail ballots to all voters on the
statewide voter checklist pursuant to the Directive.” (Id.
¶ 43.) Plaintiffs allege that the postcard mailing revealed
“numerous problems,” such as postcards being sent to voters
at addresses they no longer used, postcards sent to people who
are no longer eligible to vote in Vermont, and some longtime
registered voters who received no postcard. (Id. ¶¶ 45–48.)
The Secretary of State is prepared to follow the Directive and
Acts 92 and 135 by mailing out ballots to all active registered
voters on Friday, September 18, 2020.

Analysis
I. Plaintiffs’ Challenges
Plaintiffs are five registered Vermont voters. In addition to
their status as registered voters, several have played a role
in local and state government. Plaintiff Tracey Martel is the
town clerk of Victory, Vermont, where she is responsible for
the administration of Victory's elections. Robert Frenier is
a former member of the Vermont House of Representatives.
Brian Smith is a current member of the Vermont House. Mary
Beausoleil is a resident of Lyndon and previously a Justice of
the Peace.
A. Challenge to Statewide Mail-In Ballots
*3 Plaintiffs complain that their individual votes will be
diluted if the distribution of mail-in ballots leads—as they
fear—to mistaken votes or widespread voter fraud. The
Complaint alleges that:
if General Election mail-in ballots are automatically
distributed to every eligible voter (any voter on a voter
check-list), without any request for such a ballot from that
voter, many castable ballots will inevitably fall in the hands
of persons other than the voter to whom the mail-in ballot
was directed, including some mail-in ballots that will be
sent to persons to have moved, died or otherwise become
ineligible.”

1370

(Doc. 1 ¶ 25.) Plaintiffs fear that ballots will be mailed to
voters who have moved away, died, or otherwise become
ineligible and that these ballots will be used to vote illegally
by the ineligible voter or others who acquire the ballots and
return them to polling places. (See id. ¶ 62.)
B. Other Challenges
In addition to their challenge based on alleged dilution of
their votes, Plaintiffs assert in Count II that the Directive is
unconstitutional and an ultra vires use of legislative power.
They assert that the Directive contains provisions that are
inconsistent with Vermont law. (See id. ¶ 71.) Finally, in
Count III, Plaintiffs assert that the Directive is ultra vires
because, in Plaintiffs’ view, it does nothing beyond existing
Vermont law to “protect[ ] the health, safety, and welfare
of voters, elections workers, and candidates in carrying out
elections”—the stated purpose of Acts 92 and 135. See Act
92, § 3(a); Act 135 § 1(a).
II. Standing
Plaintiffs’ case begins and ends with the issue of standing.
This is a constitutional requirement which operates as a check
on the ability of litigants to file claims for injuries which are
insufficiently specific and direct in their effect on the plaintiff.
See Allen v. Wright, 468 U.S. 737, 754, 104 S.Ct. 3315, 82
L.Ed.2d 556 (1984) (“This Court has repeatedly held that an
asserted right to have the Government act in accordance with
law is not sufficient, standing alone, to confer jurisdiction on
a federal court.”), abrogated on other grounds by Lexmark
Int'l, Inc. v. Static Control Components, Inc., 572 U.S. 118,
126–27, 134 S.Ct. 1377, 188 L.Ed.2d 392 (2014).2 Cases in
which plaintiffs assert “generalized grievances” of unlawful
governmental action are commonly dismissed on standing
grounds. See United States v. Richardson, 418 U.S. 166, 94
S.Ct. 2940, 41 L.Ed.2d 678 (1974) (impact of government
action plainly undifferentiated and common to all members of
the public). The constitutional minimum of standing consists
of three elements: “The plaintiff must have (1) suffered an
injury in fact, (2) that is fairly traceable to the challenged
conduct of the defendant, and (3) that is likely to be redressed
by a favorable judicial decision.” Liberian Cmty. Ass'n of
Conn. v. Lamont, 970 F.3d 174, 184 (2d Cir. 2020) (quoting
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560, 112 S.Ct.
2130, 119 L.Ed.2d 351 (1992)).
2

Standing has both a constitutional and a prudential
aspect. In this case, the court is only concerned with

Case
Filedto12/07/20
3 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

58-1

Ex. 1

3

Martel v. Condos, --- F.Supp.3d ---- (2020)
2020 WL 5755289
constitutional standing. Because it is absent, there is no
need to consider the further issue of whether standing is
not present for prudential reasons.

The requirement of “injury in fact” serves multiple purposes.
It limits justiciable cases to those controversies which are
sufficiently well-defined by injury to the plaintiff that the
parties will develop the facts and seek remedies which are
responsive to the harm. See Valley Forge Christian Coll.
v. Americans United for Separation of Church and State,
Inc., 454 U.S. 464, 472, 102 S.Ct. 752, 70 L.Ed.2d 700
(1982) (“The requirement of ‘actual injury redressable by the
court’ ... tends to assure that the legal questions presented to
the court will be resolved, not in the rarified atmosphere of a
debating society, but in a concrete factual context conducive
to a realistic appreciation of the consequences of judicial
action.” (internal citations omitted)). In a manner directly
relevant to this case, the requirement supports principles of
separation of power and caution in second-guessing decisions
made by the other branches. See Laird v. Tatum, 408 U.S.
1, 15, 92 S.Ct. 2318, 33 L.Ed.2d 154 (1972) (“Carried to its
logical end, [litigation without direct injury] would have the
federal courts as virtually continuing monitors of the wisdom
and soundness of Executive action; such a role is appropriate
for the Congress acting through its committees and the ‘power
of the purse,’ it is not the role of the judiciary, absent
actual present or immediately threatened injury resulting from
unlawful governmental action.”). The “injury in fact” must
have been “concrete and particularized” and also “actual or
imminent, not conjectural or hypothetical.” Liberian Cmty.
Ass'n of Conn., 970 F.3d at 184 (quoting Lujan, 504 U.S. at
560, 112 S.Ct. 2130).
*4 Standing doctrine has an extensive history in the context
of challenges to election practices. In United States v. Classic,
313 U.S. 299, 61 S.Ct. 1031, 85 L.Ed. 1368 (1941), the
Supreme Court recognized the constitutional right to vote and
have one's vote counted. “Obviously included within the right
to choose [representatives], secured by the Constitution, is
the right of qualified voters within a state to cast their ballots
and have them counted at Congressional elections.” Id. at
315, 61 S.Ct. 1031. See The Ku Klux Cases, 110 U.S. 651, 4
S.Ct. 152, 28 L.Ed. 274 (1884). In reapportionment cases, the
Court has long recognized the standing of the disadvantaged
voter. See Baker v. Carr, 369 U.S. 186, 208, 82 S.Ct. 691,
7 L.Ed.2d 663 (1962) (“[Plaintiffs] are asserting a plain,
direct and adequate interest in maintaining the effectiveness
of their votes, not merely a claim of the right possessed by
every citizen to require that the government be administered
according to law.”) (citations and internal quotations omitted).

1371

Standing in such cases, however, does not extend to parties
who have not themselves suffered discrimination or other
individualized injury. See United States v. Hays, 515 U.S.
737, 745, 115 S.Ct. 2431, 132 L.Ed.2d 635 (1995) (without
evidence that “plaintiff has personally been subjected to
a racial classification ... [he] would be asserting only a
generalized grievance against governmental conduct of which
he or she does not approve.”); Sinkfield v. Kelley, 531 U.S. 28,
121 S.Ct. 446, 148 L.Ed.2d 329 (2000) (majority white voters
lacked standing to complain of unlawful racial practices to
which they had not been subjected). The Second Circuit
recognized the same principles in League of Women Voters
of Nassau County v. Nassau County Bd. of Supervisors, 737
F.2d 155, 162 (2d Cir. 1984) (“[parties] who are not persons
domiciled in underrepresented voting districts lack standing
to prosecute this appeal.”) See Roxbury Taxpayers Alliance v.
Delaware Cty Bd. of Supervisors, 80 F.3d 42 (2d Cir. 1996)
(only underrepresented voters have standing to bring claims
of disproportional representation).
It would over-simplify the standing analysis to conclude that
no state-wide election law is subject to challenge simply
because it affects all voters. State legislation which unfairly
restricts a voter's right to vote is subject to review by the
courts. “We have long recognized that a person's right to
vote is ‘individual and personal in nature.’ ” Gill v. Whitford,
––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d 313
(2018) (citing Reynolds v. Sims, 377 U.S. 533, 84 S.Ct.
1362, 12 L.Ed.2d 506 (1964)). But as the Gill decision
illustrates, the Supreme Court continues to decline to extend
standing to plaintiffs asserting generalized objections to state
election laws. In this case, the alleged injury is similar to the
impact alleged by the majority voters who lacked standing
in the reapportionment cases. The gerrymandered districts
altered the proportional impact of every vote, but only those
specifically disadvantaged by the unconstitutional scheme
have standing. A vote cast by fraud or mailed in by the wrong
person through mistake has a mathematical impact on the
final tally and thus on the proportional effect of every vote,
but no single voter is specifically disadvantaged.
These cases lead the court to be cautious in this case about
extending standing to any registered voter – such as the five
who have sued here – who alleges an injury common to
all other registered voters. If every voter suffers the same
incremental dilution of the franchise caused by some thirdparty's fraudulent vote, then these voters have experienced a
generalized injury. As the affidavit submitted by plaintiffs’
expert makes clear, plaintiffs believe that the new processes

Case
Filedto12/07/20
4 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

58-1

Ex. 1

4

Martel v. Condos, --- F.Supp.3d ---- (2020)
2020 WL 5755289

in place for the 2020 general election in Vermont have
an excessive error rate. They propose a different system
with heightened security, principally through a system to
compare the signature accompanying the mail-in ballot with
the signature on file. It is unnecessary to decide whether their
proposed change is a good idea or not since the standing
doctrine does not permit everyone and anyone to bring a
lawsuit to challenge the merits of legislation.
The Vermont Superior Court in Paige v. State of Vermont
recently rejected a similar challenge to the Directive on
standing grounds. In that case, a Vermont voter and candidate
for elected office in the upcoming election, H. Brooke Paige,
challenged the Directive's statewide mail-in ballot procedure
in the context of what he described as an interlocutory appeal
of an administrative election complaint that he had filed. The
Superior Court declined to hear the case because Mr. Paige
had not exhausted his administrative remedies. Paige v. State
of Vermont, No. 20-CV-00307 (Vt. Super. Ct. Sept. 8, 2020)
(Zonay, J.). But the court also held that Mr. Paige lacked
standing to challenge the statewide mail-in ballot procedure
based on concerns of fraud because his claim consisted of
“theoretical harms to the election process rather than threats
of actual injury being caused to a protected legal interest.” Id.
*5 Plaintiffs seek to distinguish Paige. They note that
Mr. Paige filed his suit prematurely. That is one of the
bases for the Superior Court's decision, but the court also
separately found that Mr. Paige lacked standing. On the issue
of standing, Plaintiffs argue that Mr. Paige had standing
because a Vermont statute allowed him to file an election
complaint with the Secretary of State. Plaintiffs here do not
rely on that Vermont statute, but instead assert that they
have alleged an individualized and particular harm flowing
from the Directive. For the reasons stated above, the court
disagrees; Plaintiffs have failed to show the “injury in fact”
necessary to have standing. The Paige court's conclusion
on the standing issue applies with equal force in this case.
Accord, Paher v. Cegavske, No. 3:20-cv-00243-MMD-WGC,
––– F.Supp.3d ––––, ––––, 2020 WL 2089813, at *5 (D. Nev.
End of Document

1372

Apr. 30, 2020) (Nevada voters lacked standing to challenge
all-mail election plan based on concerns of an increase in
illegal votes; their “purported injury of having their votes
diluted due to ostensible election fraud may be conceivable
raised by any Nevada voter. Such claimed injury therefore
does not satisfy the requirement that Plaintiffs must state a
concrete and particularized injury”).
At oral argument, counsel for the plaintiff drew attention
to a problem different from dilution by fraudulent votes
which formed the focus of the complaint. Instead, plaintiffs
seek to argue that the universal mail-in system may deprive
them of an individualized right to vote if they (1) do not
receive their ballot in the mail and (2) fail to take other
measures to obtain a ballot such as contacting the town clerk
directly or appearing at the polling place on election day in
person. As this is not a class action, the court considers the
experience of the individual plaintiffs themselves. These are
sophisticated voters who have gone to considerable lengths to
obtain counsel skilled in election law and to file a lawsuit in
federal court. Of all people likely to be confused about how to
vote, these five plaintiffs must be last on the list. The court will
not enjoin a state-wide mailing because one or more of these
plaintiffs may be confused by the non-receipt of a separate
mailing last month in connection with the primary election.

Conclusion
Plaintiffs’ Motion for Preliminary Inunction (Doc. 2) is
DENIED.
Defendant's Motion to Dismiss (Doc. 10) is GRANTED.
This case is DISMISSED WITHOUT PREJUDICE.
All Citations
--- F.Supp.3d ----, 2020 WL 5755289

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
5 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

58-1

Ex. 1

5

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

KeyCite Blue Flag – Appeal Notification
Appeal Filed by TIMOTHY MOORE v. DAMON CIRCOSTA, 4th Cir.,
October 15, 2020

2020 WL 6063332
Editor's Note: Additions are indicated by Text and deletions
by Text .
Only the Westlaw citation is currently available.
United States District Court, M.D. North Carolina.

Timothy K. MOORE, et al., Plaintiffs,
v.
Damon CIRCOSTA, et al., Defendants,
and
North Carolina Alliance for Retired
Americans, et al., Defendant-Intervenors.
Patsy J. Wise, et al., Plaintiffs,
v.
The North Carolina State Board
of Elections, et al., Defendants,
and
North Carolina Alliance for Retired
Americans, et al., Defendant-Intervenors.
1:20CV911
|
1:20CV912
|
Signed 10/14/2020
Synopsis
Background: State legislative leaders and individual
registered voters sued the executive director and members
of the North Carolina State Board of Elections (SBE),
seeking an injunction against enforcement and distribution
of memoranda issued by SBE pertaining to absentee voting.
In a second case, individual voters, a campaign committee,
national political parties, and two Members of the U.S. House
of Representatives also sought an injunction against the
same memoranda. Advocacy group for retirees and individual
registered voters who were plaintiffs in a related state court
action that resulted in a consent judgment intervened in both
cases. Plaintiffs moved for preliminary injunction.

Holdings: The District Court, William L. Osteen, J., held that:
plaintiffs lacked Article III standing to bring vote-dilution
claim;
individual plaintiffs who had already cast their absentee
ballots by mail had standing to raise equal protection claims;
plaintiffs demonstrated a likelihood of success on the merits
of their equal protection claims against the mail-in ballot
witness-requirement cure procedure and extension of mail-in
ballot receipt deadline;
plaintiffs demonstrated a likelihood of irreparable injury on
their equal protection claims against witness-requirement
cure procedure and extension of mail-in ballot receipt
deadline;
balance of equities weighed heavily against preliminary
injunction, and thus district court would deny injunctive
relief; and
SBE exceeded its statutory authority and emergency powers
when it entered into consent agreement and eliminated
witness requirements for mail-in ballots.
Motion denied.
Attorneys and Law Firms
David H. Thompson, Peter A. Patterson, Nicole Jo Moss,
Cooper & Kirk, PLLC, Washington, DC, Nathan Andrew
Huff, Phelps Dunbar LLP, Raleigh, NC, for Plaintiffs.
Alexander McClure Peters, Sarah G. Boyce, Terence Steed,
North Carolina Department of Justice, Raleigh, NC, for
Defendants.
Burton Craige, Patterson Harkavy LLP, Raleigh, NC, Marc
E. Elias, Lalitha D. Madduri, Perkins Coie, LLP, Uzoma N.
Nkwonta, Kirkland & Ellis, LLP, Washington, DC, Narendra
K. Ghosh, Patterson Harkavy, LLP, Chapel Hill, NC, for
Defendant-Intervenors.

MEMORANDUM OPINION AND ORDER

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1373 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 27 Document 58-2

1

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

OSTEEN, JR., District Judge
*1 Presently before this court are two motions for a
preliminary injunction in two related cases.
In the first case, Moore v. Circosta, No. 1:20CV911
(“Moore”), Plaintiffs Timothy K. Moore and Philip E.
Berger (together, “State Legislative Plaintiffs”), Bobby
Heath, Maxine Whitley, and Alan Swain (together,
“Moore Individual Plaintiffs”) seek an injunction against
the enforcement and distribution of several Numbered
Memoranda issued by the North Carolina State Board of
Elections pertaining to absentee voting. (Moore v. Circosta,
No. 1:20CV911, Mot. for Prelim. Inj. and Mem. in Supp.
(“Moore Pls.’ Mot.”) (Doc. 60).)
In the second case, Wise v. North Carolina State Board
of Elections, No. 1:20CV912 (“Wise”), Plaintiffs Patsy
J. Wise, Regis Clifford, Samuel Grayson Baum, and
Camille Annette Bambini (together, “Wise Individual
Plaintiffs”), Donald J. Trump for President, Inc. (“Trump
Campaign”), U.S. Congressman Gregory F. Murphy and
U.S. Congressman Daniel Bishop (together, “Candidate
Plaintiffs”), Republican National Committee (“RNC”),
National Republican Senatorial Committee (“NRSC”),
National Republican Congressional Committee (“NRCC”),
and North Carolina Republican Party (“NCRP”) seek an
injunction against the enforcement and distribution of the
same Numbered Memoranda issued by the North Carolina
State Board of Elections at issue in Moore. (Wise Pls.’ Mem.
in Supp. of Mot. to Convert the Temp. Restraining Order into
a Prelim. Inj. (“Wise Pls.’ Mot.”) (Doc. 43).)
By this order, this court finds Plaintiffs have established a
likelihood of success on their Equal Protection challenges
with respect to the State Board of Elections’ procedures for
curing ballots without a witness signature and for the deadline
extension for receipt of ballots. This court believes the
unequal treatment of voters and the resulting Equal Protection
violations as found herein should be enjoined. Nevertheless,
under Purcell and recent Supreme Court orders relating to
Purcell, this court is of the opinion that it is required to find
that injunctive relief should be denied at this late date, even
in the face of what appear to be clear violations.
I. BACKGROUND
A. Parties

1. Moore v. Circosta (1:20CV911)
State Legislative Plaintiffs Timothy K. Moore and Philip
E. Berger are the Speaker of the North Carolina House
of Representatives and the President Pro Tempore of the
North Carolina Senate, respectively. (Moore v. Circosta, No.
1:20CV911, Compl. for Declaratory and Injunctive Relief
(“Moore Compl.”) (Doc. 1) ¶¶ 7-8.) Individual Plaintiffs
Bobby Heath and Maxine Whitley are registered North
Carolina voters who voted absentee by mail and whose
ballots have been accepted by the State Board of Elections on
September 21, 2020, and September 17, 2020, respectively.
(Id. ¶¶ 9-10.) Plaintiff Alan Swain is a resident of Wake
County, North Carolina, who is running as a Republican
candidate to represent the State's Second Congressional
District. (Id. ¶ 11.)
Executive Defendants include Damon Circosta, Stella
Anderson, Jeff Carmon, III, and Karen Brinson Bell are
members of the State Board of Elections (“SBE”). (Id.
¶¶ 12-15.) Executive Defendant Karen Brinson Bell is the
Executive Director of SBE. (Id. ¶ 15.)
*2 Intervenor-Defendants North Carolina Alliance for
Retired Americans, Barker Fowler, Becky Johnson, Jade
Jurek, Rosalyn Kociemba, Tom Kociemba, Sandra Malone,
and Caren Rabinowitz (“Alliance Intervenors”) are plaintiffs
in the related state court action in Wake County Superior
Court. (Moore v. Circosta, No. 1:20CV911 (Doc. 28) at
15.)1 Barker Fowler, Becky Johnson, Jade Jurek, Rosalyn
Kociemba, Tom Kociemba, Sandra Malone, and Caren
Rabinowitz are individual voters who are concerned they will
be disenfranchised by Defendant SBE's election rules, (id.),
and North Carolina Alliance for Retired Americans (“NC
Alliance”) is an organization “dedicated to promoting the
franchise and ensuring the full constitutional rights of its
members ....” (Id.)
1

All citations in this Memorandum Opinion and Order to
documents filed with the court refer to the page numbers
located at the bottom right-hand corner of the documents
as they appear on CM/ECF.

2. Wise v. N.C. State Bd. of Elections (1:20CV912)
Individual Plaintiffs Patsy J. Wise, Regis Clifford, Camille
Annette Bambini, and Samuel Grayson Baum are registered

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1374 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 27 Document 58-2

2

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

voters in North Carolina. (Wise v. N.C. State Bd. of Elections,
No. 1:20CV912, Compl. for Declaratory and Injunctive
Relief (“Wise Compl.”) (Doc. 1) ¶¶ 25-28.) Wise has already
cast her absentee ballot for the November 3, 2020 election
by mail, “in accordance with statutes, including the Witness
Requirement, enacted by the General Assembly.” (Id. ¶ 25.)
Plaintiffs Clifford, Bambini, and Baum intend to vote in the
November 3, 2020 election and are “concern[ed] that [their]
vote[s] will be negated by improperly cast or fraudulent
ballots.” (Id. ¶¶ 26-28.)
Plaintiff Trump Campaign represents the interests of
President Donald J. Trump, who is running for reelection. (Id. ¶¶ 29-30.) Together, Candidate Plaintiffs Trump
Campaign, U.S. Congressman Daniel Bishop, and U.S.
Congressman Gregory F. Murphy are candidates who will
appear on the ballot for re-election in the November 3, 2020
general election. (Id. ¶¶ 29-32.)
Plaintiff RNC is a national political party, (id. ¶¶ 33-36),
that seeks to protect “the ability of Republican voters to
cast, and Republican candidates to receive, effective votes
in North Carolina elections and elsewhere,” (id. ¶ 37), and
avoid diverting resources and spending significant amounts
of resources educating voters regarding confusing changes in
election rules, (id. ¶ 38).
Plaintiff NRSC is a national political party committee that
is exclusively devoted to electing Republican candidates to
the U.S. Senate. (Id. ¶ 40.) Plaintiff NRCC is the national
organization of the Republican Party dedicated to electing
Republicans to the U.S. House of Representatives. (Id. ¶
41.) Plaintiff NRCP is a North Carolina state political party
organization that supports Republican candidates running in
North Carolina elections. (Id. ¶¶ 44-45.)
Executive Defendant North Carolina SBE is the agency
responsible for the administration of the elections laws of the
State of North Carolina. (Id. ¶ 46.) As in Moore, included as
Executive Defendants are Damon Circosta, Stella Anderson,
Jeff Carmon, III, and Karen Brinson Bell of the North
Carolina SBE. (Id. ¶¶ 47-50.)
Alliance Intervenors from Moore are also IntervenorDefendants in Wise. (1:20CV912 (Doc. 22).)
B. Factual Background

1. This Court's Decision in Democracy
On August 4, 2020, this court issued an order in a third related
case, Democracy North Carolina v. North Carolina State
Board of Elections, No. 1:20CV457, ––– F.Supp.3d ––––,
2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) (“the August
Democracy Order”), that “left the One-Witness Requirement
in place, enjoined several rules related to nursing homes that
would disenfranchise Plaintiff Hutchins, and enjoined the
rejection of absentee ballots unless the voter is provided due
process.” (Id. at ––––, 2020 WL 4484063, at *1.) As none of
the parties appealed that order, the injunctive relief is still in
effect.

2. Release of the Original Memo 2020-19
*3 In response to the August Democracy Order, on August
21, 2020, SBE officials released guidance for “the procedure
county boards must use to address deficiencies in absentee
ballots.” (Numbered Memo 2020-19 (“Memo 2020-19” or
“the original Memo”) (Moore v. Circosta, No. 1:20CV911,
Moore Compl. (Doc. 1) Ex. 3 – NC State Bd. of Elections
Mem. (“Original Memo 2020-19”) (Doc. 1-4) at 2.) This
guidance instructed county boards regarding multiple topics.
First, it instructed county election boards to “accept [a] voter's
signature on the container-return envelope if it appears to be
made by the voter ... [a]bsent clear evidence to the contrary,”
even if the signature is illegible. (Id.) The guidance clarified
that “[t]he law does not require that the voter's signature on
the envelope be compared with the voter's signature in their
registration record,” as “[v]erification of the voter's identity
is completed through the witness requirement.” (Id.)
Second, the guidance sorted ballot deficiencies into two
categories: curable and uncurable deficiencies. (Id. at 3.)
Under this version of Memo 2020-19, a ballot could be
cured via voter affidavit alone if the voter failed to sign
the certification or signed in the wrong place. (Id.) A ballot
error could not be cured, and instead, was required to be
spoiled, in the case of all other listed deficiencies, including
a missing signature, printed name, or address of the witness;
an incorrectly placed witness or assistant signature; or an
unsealed or re-sealed envelope. (Id.) Counties were required
to notify voters in writing regarding any ballot deficiency –
curable or incurable - within one day of the county identifying
the defect and to enclose either a cure affidavit or a new ballot,
based on the type of deficiency at issue. (Id. at 4.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1375 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 27 Document 58-2

3

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

In the case of an incurable deficiency, a new ballot could
be issued only “if there [was] time to mail the voter a new
ballot ... [to be] receive[d] by Election Day.” (Id. at. 3) If a
voter who submitted an uncurable ballot was unable to receive
a new absentee ballot in time, he or she would have the option
to vote in person on Election Day. (Id. at 4.)
If the deficiency was curable by a cure affidavit, the guidance
stated that the voter must return the cure affidavit by no later
than 5 p.m. on Thursday, November 12, 2020. (Id.)

3. Rescission of Numbered Memo 2020-19
The State began issuing ballots on September 4, 2020,
marking the beginning of the election process. (Wise, No.
1:20CV912, Wise Pls.’ Mot. (Doc. 43).) On September
11, 2020, SBE directed counties to stop notifying voters
of deficiencies in their ballot, as advised in Memo
2020-19, pending further guidance from SBE. (Moore, No.
1:20CV911, Moore Pls.’ Mot. (Doc. 60) Ex. 3, Democracy
Email Chain (Doc. 60-4) at 6.)

4. Revision of Numbered Memo 2020-19
On September 22, over two weeks after the State began
issuing ballots, SBE issued a revised Numbered Memo
2020-19, which set forth a variety of new policies not
implemented in the original Memo 2020-19. (Numbered
Memo 2020-19 (“the Revised Memo” or “Revised Memo
2020-19”) (Moore v. Circosta, No. 1:20CV911 (Doc. 36)
Ex. 3, Revised Numbered Memo 2020-19 (“Revised Memo
2020-19”) (Doc. 36-3).) In subsequent litigation in Wake
County Superior Court, SBE advised the court that both
the original Memo 2020-19 and the Revised Memo were
issued “to ensure full compliance with the injunction entered
by Judge Osteen.” (Moore v. Circosta, No. 1:20CV911,
Exec. Defs.’ Br. in Supp. of Joint Mot. for Entry of
Consent Judgment (“SBE State Court Br.”) (Doc. 68-1)
at 15.) Moreover, on September 28, 2020, during a status
conference with a district court in the Eastern District of
North Carolina prior to transfer to this court, counsel for
Defendant SBE stated that Defendant SBE issued the revised
Memo 2020-19 “in order to comply with Judge Osteen's
preliminary injunction in the Democracy N.C. action in the
Middle District.” (Moore v. Circosta, No. 1:20CV911, Order
Granting Mot. for Temp. Restraining Order (“TRO”) (Doc.

47) at 9.) At that time, counsel for SBE indicated that they
had not yet submitted the Revised Memo 2020-19 to this
court, “but that it was on counsel's list to get [it] done
today.” (Id.) (internal quotations omitted.) On September 28,
2020, Defendant SBE filed the Revised Memo 2020-19 with
this court in the Democracy action. (Democracy N.C. v. N.C.
State Bd. of Elections, No. 1:20CV457 (Doc. 143-1).)
*4 The revised guidance modified which ballot deficiencies
fell into the curable and uncurable categories. Unlike the
original Memo 2020-19, the Revised Memo advised that
ballots missing a witness or assistant name or address, as well
as ballots with a missing or misplaced witness or assistant
signature, could be cured via voter certification. (Moore v.
Circosta, No. 1:20CV911, Revised Memo 2020-19 (Doc.
36-3) at 3.) According to the revised guidance, the only
deficiencies that could not be cured by certification, and thus
required spoliation, were where the envelope was unsealed
or where the envelope indicated the voter was requesting a
replacement ballot. (Id. at 4.)
The cure certification in Revised 2020-19 required voters to
sign and affirm the following:
I am submitting this affidavit to correct a problem with
missing information on the ballot envelope. I am an eligible
voter in this election and registered to vote in [name]
County, North Carolina. I solemnly swear or affirm that I
voted and returned my absentee ballot for the November 3,
2020 general election and that I have not voted and will not
vote more than one ballot in this election. I understand that
fraudulently or falsely completing this affidavit is a Class
I felony under Chapter 163 of the North Carolina General
Statutes.
(Moore v. Circosta, No. 1:20CV911 (Doc. 45-1) at 34.)
The revised guidance also extended the deadline for civilian
absentee ballots to be received to align with that for military
and overseas voters. (Moore v. Circosta, No. 1:20CV911,
Revised Memo 2020-19 (Doc. 36-3) at 5.) Under the original
Memo 2020-19, in order to be counted, civilian absentee
ballots must have been received by the county board office by
5 p.m. on Election Day, November 3, 2020, or if postmarked,
by Election Day, by 5:00 p m. on November 6, 2020. (Moore
v. Circosta, No. 1:20CV911, Original Memo 2020-19 (Doc.
1-4) at 5 (citing N.C. Gen. Stat. § 163-231(b)).) Under the
Revised Memo 2020-19, however, a late civilian ballot would
be counted if postmarked on or before Election Day and
received by 5:00 p m. on November 12, 2020. (Moore v.
Circosta, No. 1:20CV911, Revised Memo 2020-19 (Doc.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1376 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 27 Document 58-2

4

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

36-3) at 5.) This is the same as the deadline for military and
overseas voters, as indicated in the Original Memo 2020-19.
(Id.)2
2

In Democracy N. Carolina v. N.C. State Board
of Elections, No. 1:20CV457, an order is entered
contemporaneously with this Memorandum Opinion and
Order enjoining certain aspects of the Revised Memo
2020-19.

5. Numbered Memoranda 2020-22 and 2020-23
SBE issued two other Numbered Memoranda on September
22, 2020, in addition to Revised Numbered Memo 2020-19.

of elections, (id.), Numbered Memo 2020-23 confirms that
“an absentee ballot may not be left in an unmanned drop
box.” (Id.) The guidance reminds county boards that they
must keep a written log when any person returns an absentee
ballot in person, which includes the name of the individual
returning the ballot, their relationship to the voter, the ballot
number, and the date it was received. (Id. at 3.) If the
individual who drops off the ballot is not the voter, their
near relative, or legal guardian, the log must also record their
address and phone number. (Id.)
3

The Memoranda incorrectly cites this statute as N.C.
Gen. Stat. § 163-223.6(a)(5).

At the same time, the guidance advises county boards that
“[f]ailure to comply with the logging requirement, or delivery
or an absentee ballot by a person other than the voter, the
voter's near relative, or the voter's legal guardian, is not
sufficient evidence in and of itself to establish that the voter
did not lawfully vote their ballot.” (Id. at 3.) Instead, the
guidance advises the county board that they “may ... consider
the delivery of a ballot ... in conjunction with other evidence
in determining whether the ballot is valid and should be
counted.” (Id. at 4.)

First, SBE issued Numbered Memo 2020-22, the purpose
of which was to further define the term postmark used in
Numbered Memo 2020-19. (Wise, No. 1:20CV912, Wise
Compl. (Doc. 1), Ex. 3, N.C. State Bd. of Elections Mem.
(“Memo 2020-22”) (Doc. 1-3) at 2.) Numbered Memo
2020-22 advised that although “[t]he postmark requirement
for ballots received after Election Day is in place to prohibit
a voter from learning the outcome of an election and then
casting their ballot.... [T]he USPS does not always affix a
postmark to a ballot return envelope.” (Id.) Recognizing that
SBE now offers “BallotTrax,” a system in which voters and
county boards can track the status of a voter's absentee ballot,
SBE said “it is possible for county boards to determine when
a ballot was mailed even if does not have a postmark.” (Id.)
Moreover, SBE recognized that commercial carriers offer
tracking services that document when a ballot was deposited
with the commercial carrier. (Id.) For these reasons, the new
guidance stated that a ballot would be considered postmarked
by Election Day if it had a postmark, there is information in
BallotTrax, or “another tracking service offered by the USPS
or a commercial carrier, indicat[es] that the ballot was in
the custody of USPS or the commercial carrier on or before
Election Day.” (Id. at 3.)

6. Consent Judgment in North Carolina Alliance for
Retired Americans v. North Carolina State Bd. of
Elections

*5 Second, SBE issued Numbered Memo 2020-23, which
provides “guidance and recommendations for the safe, secure,
and controlled in-person return of absentee ballots.” (Wise,
No. 1:20CV912, Wise Compl. (Doc. 1), Ex. 4, N.C. State
Bd. of Elections Mem. (“Memo 2020-23”) (Doc. 1-4) at

On August 12, 2020, Philip Berger and Timothy Moore,
Plaintiffs in Moore, filed a notice of intervention as of right
in the state court action and became parties to that action
as intervenor-defendants on behalf of the North Carolina
General Assembly. (Id. at 16.)

2.) Referring to N.C. Gen. Stat. § 163-226.3(a)(5),3 which
prohibits any person other than the voter's near relative or
legal guardian to take possession of an absentee ballot of
another voter for delivery or for return to a county board

On August 10, 2020, NC Alliance, the Defendant-Intervenors
in the two cases presently before this court, filed an action
against SBE in North Carolina's Wake County Superior
Court challenging, among other voting rules, the witness
requirement for mail-in absentee ballots and rejection of mailin absentee ballots that are postmarked by Election Day but
delivered to county boards more than three days after the
election. (Moore v Circosta, No. 1:20CV911, SBE State Court
Br. (Doc. 68-1) at 15.)

On September 22, 2020, SBE and NC Alliance filed a Joint
Motion for Entry of a Consent Judgment with the superior
court. (Id.) Philip Berger and Timothy Moore were not aware
of this “secretly-negotiated” Consent Judgment, (Wise Pls.’

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1377 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 27 Document 58-2

5

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

Mot. (Doc. 43) at 6), until the parties did not attend a
previously scheduled deposition, (Democracy v. N.C. Bd. of
Elections, No. 1:20CV457 (Doc. 168) at 73.)

Superior Court noted this court's preliminary injunction in
Democracy, finding,
WHEREAS, on August 4, 2020, the United States District
Court for the Middle District of North Carolina enjoined
the State Board from “the “disallowance or rejection ...
of absentee ballots without due process as to those ballots
with a material error that is subject to remediation.”
Democracy N.C. v. N.C. State Bd. of Elections, No.
1:20-cv-00457-WO-JLW [––– F.Supp.3d ––––, 2020 WL
4484063] (M.D.N.C. Aug. 4, 2020) (Osteen, J.). ECF 124
at 187. The injunction is to remain in force until the State
Board implements a cure process that provides a voter
with “notice and an opportunity to be heard before an
absentee ballot with a material error subject to remediation
is disallowed or rejected.” Id.

Among the terms of the Consent Judgment, SBE agreed to
extend the deadline for receipt of mail-in absentee ballots
mailed on or before Election Day to nine days after Election
Day, to implement the cure process established in Revised
Memo 2020-19, and to establish separate mail in absentee
ballot “drop off stations” at each early voting site and county
board of elections office which were to be staffed by county
board officials. (Moore v. Circosta, No. 1:20CV911, SBE
State Court Br. (Doc. 68-1) at 16.)
In its filings with the state court, SBE frequently cited this
court's decision in Democracy as a reason for why the Wake
County Superior Court Judge should accept the Consent
Judgment. SBE argued that a cure procedure for deficiencies
related to the witness requirement were necessary because
“[w]itness requirements for absentee ballots have been shown
to be, broadly speaking, disfavored by the courts,” (id. at
26), and that “[e]ven in North Carolina, a federal court held
that the witness requirement could not be implemented as
statutorily authorized without a mechanism for voters to have
adequate notice of and [an opportunity to] cure materials [sic]
defects that might keep their votes from being counted,” (id. at
27). SBE argued that, “to comply with the State Defendants’
understanding of the injunction entered by Judge Osteen,
the State Board directed county boards of elections not to
disapprove any ballots until a new cure procedure that would
comply with the injunction could be implemented,” (id. at 30),
and that ultimately, the cure procedure introduced in Revised
Memo 2020-19 as part of the consent judgment would comply
with this injunction. (Id.) SBE indicated that it had notified
the federal court of the cure mechanism process on September
22, 2020, (id.), although this court was not made aware of
the cure procedure until September 28, 2020, (Democracy
N.C. v. N.C. State Bd. of Elections, No. 1:20CV457 (Doc.
143-1)), the day before the processing of absentee ballots
was scheduled to begin on September 29, 2020, (Moore v.
Circosta, No. 20CV911 Transcript of Oral Argument (“Oral
Argument Tr.”)(Doc. 70) at 109.)
*6 On October 2, 2020, the Wake County Superior Court
entered the Stipulation and Consent Judgment. (Moore v.
Circosta, No. 1:20CV911, State Court Consent Judgment
(Doc. 45-1).) Among its recitals, which Defendant SBE
drafted and submitted to the judge as is customary in state
court, (Oral Argument Tr. (Doc. 70) at 91), the Wake County

(State Court Consent Judgment (Doc. 45-1) at 6.)4
4

An additional discussion of the facts related to SBE's
use of this court's order in obtaining a Consent Judgment
is set out in this court's order in Democracy v. North
Carolina State Board of Elections, No. 1:20CV457,
2020 WL 6058048 (M.D.N.C. Oct. 14, 2020) (enjoining
witness cure procedure).

7. Numbered Memoranda 2020-27, 2020-28, and 2020-29
In addition to the Numbered Memoranda issued on September
22, 2020, as part of the consent judgment in the state court
case, SBE has issued three additional numbered memoranda.
First, on October 1, 2020, SBE issued Numbered Memo
2020-27, which was issued in response to this court's order
in Democracy regarding the need for parties to attend a status
conference to discuss Numbered Memo 2020-19. (Moore v.
Circosta, No. 1:20CV911 (Doc. 40-2) at 2.) The guidance
advises county boards that this court did not find Numbered
Memo 2020-19:
“consistent with the Order entered by this Court on August
4, 2020,” and indicates that its preliminary injunction order
should “not be construed as finding that the failure of a
witness to sign the application and certificate as a witness
is a deficiency which may be cured with a certification after
the ballot has been returned.”
(Id.) “In order to avoid confusion while related matters are
pending in a number of courts,” the guidance advises that
“[c]ounty boards that receive an executed absentee containerreturn envelope with a missing witness signature shall take

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1378 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 27 Document 58-2

6

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

no action as to that envelope.” (Id.) In all other respects,
SBE stated that Revised Numbered Memo 2020-19 remains
in effect. (Id.)
Second, on October 4, 2020, SBE issued Numbered Memo
2020-28, which states that both versions of Numbered
Memo 2020-19, as well as Numbered Memoranda 2020-22,
2020-23, and 2020-27 “are on hold until further notice”
following the temporary restraining order entered in the
instant cases on October 3, 2020. (Moore v. Circosta,
No. 1:20CV911 (Doc. 60-5) at 2.) Moreover, the guidance
reiterated that “[c]ounty boards that receive an executed
absentee container-return envelope with a deficiency shall
take no action as to that envelope,” including sending a
cure notification or reissuing the ballot. (Id. at 2-3.) Instead,
the guidance directs county boards to store envelopes with
deficiencies in a secure location until further notice. (Id. at
3.) If, however, a county board had previously issued a ballot
and the second envelope is returned without any deficiencies,
the guidance permits the county board to approve the second
ballot. (Id.)
*7 Finally, on October 4, 2020, SBE issued Numbered
Memo 2020-29, which states that it provides “uniform
guidance and further clarification on how to determine if
the correct address can be identified if the witness's or
assistant's address on an absentee container-return envelope
is incomplete. (Wise, No. 1:20CV912 (Doc. 43-5).) First, the
guidance clarifies that if a witness or assistant does not print
their address, the envelope is deficient. (Id. at 2.) Second, the
guidance states that failure to list a witness's ZIP code does
not require a cure; a witness or assistant's address may be a
post office box or other mailing address; and if the address
is missing a city or state, but the county board can determine
the correct address, the failure to include this information
does not invalidate the container-return envelope. (Id.) Third,
if both the city and ZIP code are missing, the guidance
directs staff to determine whether the correct address can be
identified. (Id.) If they cannot be identified, then the envelope
is deficient. (Id.)

Alliance Intervenors filed a Motion to Intervene as
Defendants in Moore on September 30, 2020, (Moore v.
Circosta, No. 1:20CV911 (Doc. 27)), and in Wise on October
2, 2020, (Wise, No. 1:20CV912 (Doc. 21)). This court granted
Alliance Intervenors’ Motion to Intervene on October 8,
2020. (Moore v. Circosta, No. 1:20CV911 (Doc. 67); Wise,
No. 1:20CV912 (Doc. 49).)
The district court in the Eastern District of North Carolina
issued a temporary restraining order in both cases on October
3, 2020, and transferred the actions to this court for this
court's “consideration of additional or alternative injunctive
relief along with any such relief in Democracy North Carolina
v. North Carolina State Board of Elections ....” (Moore
v. Circosta, 1:20CV911, TRO (Doc. 47) at 2; Wise, No.
1:20CV912 (Doc. 25) at 2.)
On October 5, 2020, this court held a Telephone
Conference, (Moore v. Circosta, No. 1:20CV911, Minute
Entry 10/05/2020; Wise, No. 1:20CV912, Minute Entry
10/05/2020), and issued an order directing the parties to
prepare for a hearing on the temporary restraining order and/
or a preliminary injunction and to submit additional briefing,
(Moore v. Circosta, No. 1:20CV911 (Doc. 51); Wise, No.
1:20CV912 (Doc. 30)). On October 6, 2020, Plaintiffs in
Wise filed a Memorandum in Support of Plaintiffs’ Motion to
Convert the Temporary Restraining Order into a Preliminary
Injunction, (Wise Pls.’ Mot. (Doc. 43)), and Plaintiffs in
Moore filed a Motion for a Preliminary Injunction and
Memorandum in Support of Same, (Moore Pls.’ Mot. (Doc.
60)). Defendant SBE filed a response to Plaintiffs’ motions
in both cases on October 7, 2020. (Moore v. Circosta, No.
1:20CV911, State Defs.’ Resp. to Pls.’ Mot. for Prelim.
Inj. (“SBE Resp.”) (Doc. 65); Wise, No. 1:20CV912 (Doc.
45).) Alliance Intervenors also filed a response to Plaintiffs’
motions in both cases on October 7, 2020. (Moore v. Circosta,
No. 1:20CV911, Proposed Intervenors’ Mem. in Opp'n to
Pls.’ Mot. for a Prelim. Inj. (“Alliance Resp.”) (Doc. 64);
Wise, No. 1:20CV912 (Doc. 47).)5
5

C. Procedural History
On September 26, 2020, Plaintiffs in Moore filed their action
in the United States District Court for the Eastern District of
North Carolina. (Moore Compl. (Doc. 1).) Plaintiffs in Wise
also filed their action in the United States District Court for
the Eastern District of North Carolina on September 26, 2020.
(Wise Compl. (Doc. 1).)

Defendant SBE and Alliance Intervenors’ memoranda
filed in opposition to Plaintiffs’ motions for a preliminary
injunction in Moore are identical to those that each
party filed in Wise. (Compare SBE Resp. (Doc. 65) and
Alliance Resp. (Doc. 64) with Wise, No. 1:20CV912
(Doc. 45) and Wise, No. 1:20CV912 (Doc. 47).) For
clarity and ease, this court will cite only to the briefs
Defendant SBE and Alliance Intervenors filed in Moore
in subsequent citations.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1379 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 27 Document 58-2

7

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

This court held oral arguments on October 8, 2020, in which
all of the parties in these two cases presented arguments
with respect to Plaintiffs’ motions for a preliminary
injunction. (Moore v. Circosta, No. 1:20CV911, Minute
Entry 10/08/2020; Wise, No. 1:20CV912, Minute Entry
10/08/2020.)
*8 This court has federal question jurisdiction over these
cases under 28 U.S.C. § 1331. This matter is ripe for
adjudication.
D. Preliminary Injunction Standard of Review
“A plaintiff seeking a preliminary injunction must establish
that he is likely to succeed on the merits, that he is likely to
suffer irreparable harm in the absence of preliminary relief,
that the balance of equities tips in his favor, and that an
injunction is in the public interest.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 20, 129 S.Ct. 365, 172 L.Ed.2d
249 (2008). Such an injunction “is an extraordinary remedy
intended to protect the status quo and prevent irreparable
harm during the pendency of a lawsuit.” Di Biase v. SPX
Corp., 872 F.3d 224, 230 (4th Cir. 2017).
II. ANALYSIS
Executive Defendants and Alliance Intervenors challenge
Plaintiffs’ standing to seek a preliminary injunction regarding
their Equal Protection, Elections Clause, and Electors Clause
claims. (Alliance Resp. (Doc. 64) at 14-18; SBE Resp.
(Doc. 65) at 11-13.) Executive Defendants and Alliance
Intervenors also challenge this court's ability to hear this
action under abstention, (Alliance Resp. (Doc. 64) at 10-14;
SBE Resp. (Doc. 65) at 10-11), Rooker-Feldman (Alliance
Resp. (Doc. 64) at 13), and preclusion doctrines, (SBE
Resp. (Doc. 65) at 7-10). Finally, Executive Defendants
and Alliance Intervenors attack Plaintiffs’ motions for
preliminary injunction on the merits. (Alliance Resp. (Doc.
64) at 19-26; SBE Resp. (Doc. 65) at 13-18.)
Because Rooker-Feldman, abstention, and preclusion are
dispositive issues, this court addresses them first, then
addresses Plaintiffs’ motions on standing and the likelihood
of success on the merits.
As to each of these abstention doctrines, as will be explained
further, this court's preliminary injunction order, (Doc. 124),
in Democracy North Carolina v. North Carolina State Board
of Elections, No. 1:20CV457, played a substantial role as
relevant authority supporting SBE's request for approval, in

North Carolina state court, of Revised Memo 2020-19 and
the related Consent Judgment. (See discussion infra Part
II.D.3.b.i.) As Berger, Moore, and SBE are all parties in
Democracy, this court initially finds that abstention doctrines
do not preclude this court's exercise of jurisdiction. This
court's August Democracy Order was issued prior to the filing
of these state court actions, and that Order was the basis of
the subsequent grant of affirmative relief by the state court.
This court declines to find that any abstention doctrine would
preclude it from issuing orders in aid of its jurisdiction, or as
to parties appearing in a pending case in this court.
A. Rooker-Feldman Doctrine
Rooker-Feldman doctrine is a jurisdictional doctrine that
prohibits federal district courts from “ ‘exercising appellate
jurisdiction over final state-court judgments.’ ” See Thana
v. Bd. of License Comm'rs for Charles Cnty., 827 F.3d
314, 319 (4th Cir. 2016) (quoting Lance v. Dennis, 546
U.S. 459, 463, 126 S.Ct. 1198, 163 L.Ed.2d 1059 (2006)
(per curiam)). The presence or absence of subject matter
jurisdiction under Rooker-Feldman is a threshold issue that
this court must determine before considering the merits of the
case. Friedman's, Inc. v. Dunlap, 290 F.3d 191, 196 (4th Cir.
2002).
*9 Although Rooker-Feldman originally limited only
federal-question jurisdiction, the Supreme Court has
recognized the applicability of the doctrine to cases brought
under diversity jurisdiction:
Rooker and Feldman exhibit the limited circumstances in
which this Court's appellate jurisdiction over state-court
judgments, 28 U.S.C. § 1257, precludes a United States
district court from exercising subject-matter jurisdiction in
an action it would otherwise be empowered to adjudicate
under a congressional grant of authority, e.g., § 1330 (suits
against foreign states), § 1331 (federal question), and §
1332 (diversity).
See Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 291-92, 125 S.Ct. 1517, 161 L.Ed.2d 454 (2005). Under
the Rooker-Feldman doctrine, courts lack subject matter
jurisdiction to hear “cases brought by [1] state-court losers
complaining of [2] injuries caused by state-court judgments
[3] rendered before the district court proceedings commenced
and [4] inviting district court review and rejection of those
judgments.” Id. at 284, 125 S.Ct. 1517. The doctrine is
“narrow and focused.” Thana, 827 F.3d at 319. “[I]f a plaintiff
in federal court does not seek review of the state court
judgment itself but instead ‘presents an independent claim, it

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1380 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 27 Document 58-2

8

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

is not an impediment to the exercise of federal jurisdiction that
the same or a related question was earlier aired between the
parties in state court.’ ” Id. at 320 (quoting Skinner v. Switzer,
562 U.S. 521, 532, 131 S.Ct. 1289, 179 L.Ed.2d 233 (2011)).
Rather, “any tensions between the two proceedings should
be managed through the doctrines of preclusion, comity, and
abstention.” Id. (citing Exxon, 544 U.S. at 292–93, 125 S.Ct.
1517).
Moreover, “the Rooker–Feldman doctrine applies only when
the loser in state court files suit in federal district court seeking
redress for an injury allegedly caused by the state court's
decision itself.” Davani v. Va. Dep't of Transp., 434 F.3d 712,
713 (4th Cir. 2006); see also Hulsey v. Cisa, 947 F.3d 246,
250 (4th Cir. 2020) (“A plaintiff's injury at the hands of a third
party may be ‘ratified, acquiesced in, or left unpunished by’
a state-court decision without being ‘produced by’ the statecourt judgment.”) (internal citations omitted).
Here, Plaintiffs are challenging SBE's election procedures and
seeking injunction of those electoral rules, not attempting to
directly appeal results of a state court order. More importantly,
however, the Fourth Circuit has previously found that a party
is not a state court loser for purposes of Rooker-Feldman
if “[t]he [state court] rulings thus were not ‘final state-court
judgments’ ” against the party bringing up the same issues
before a federal court. Hulsey, 947 F.3d at 251 (quoting
Lance, 546 U.S. at 463, 126 S.Ct. 1198). In the Alliance state
court case, Alliance brought suit against SBE. The Plaintiffs
from this case were intervenors. They were not parties to
the Settlement Agreement and were in no way properly
adjudicated “state court losers.” Given the Supreme Court's
intended narrowness of the Rooker-Feldman doctrine, see
Lance, 546 U.S. at 464, 126 S.Ct. 1198, and Plaintiffs’ failure
to fit within the Fourth Circuit's definition of “state-court
losers,” this court will decline to abstain under the RookerFeldman doctrine.
B. Abstention
1. Colorado River Abstention
*10 Abstention “is the exception, not the rule.” Colo.
River Water Conservation Dist. v. United States, 424 U.S.
800, 813, 96 S.Ct. 1236, 47 L.Ed.2d 483 (1976); see also
id. at 817, 96 S.Ct. 1236 (noting the “virtually unflagging
obligation of the federal courts to exercise the jurisdiction
given them”). Thus, this court's task “is not to find some

substantial reason for the exercise of federal jurisdiction,”
but rather “to ascertain whether there exist ‘exceptional’
circumstances, the ‘clearest of justifications,’ ... to justify the
surrender of that jurisdiction.” Moses H. Cone Mem'l Hosp.
v. Mercury Constr. Corp., 460 U.S. 1, 25-26, 103 S.Ct. 927,
74 L.Ed.2d 765 (1983).
First, and crucially for this case, the court must determine
whether there are ongoing state and federal proceedings that
are parallel. Al-Abood ex rel. Al-Abood v. El-Shamari, 217
F.3d 225, 232 (4th Cir. 2000) (“The threshold question in
deciding whether Colorado River abstention is appropriate is
whether there are parallel suits.”); Ackerman v. ExxonMobil
Corp., 734 F.3d 237, 248 (4th Cir. 2013) (finding that
abstention is exercised only “in favor of ongoing, parallel
state proceedings” (emphasis added)). In this instance, the
parties have failed to allege any ongoing state proceeding that
this federal suit might interfere with. In fact, Plaintiffs in this
case were excluded as parties in the Consent Judgment and
are bringing independent claims in this federal court alleging
violations, inter alia, of the Equal Protection Clause. This
court does not find that Colorado River abstention prevents
it from adjudicating Equal Protection claims raised by parties
who were not parties to the Consent Judgment.

2. Pennzoil Abstention
As alleged by Defendants, Pennzoil does dictate that federal
courts should not “interfere with the execution of state
judgments.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 14,
107 S.Ct. 1519, 95 L.Ed.2d 1 (1987). However, in the very
next sentence, the Pennzoil court caveats that this doctrine
applies “[s]o long as those challenges relate to pending state
proceedings.” Id. In fact, in Pennzoil itself, the Court clarified
that abstention was proper because “[t]here is at least one
pending judicial proceeding in the state courts; the lawsuit out
of which Texaco's constitutional claims arose is now pending
before a Texas Court of Appeals in Houston, Texas.” Id. at
14, 107 S.Ct. 1519 n.13.
Abstention was also justified in Pennzoil because the Texas
state court was not presented with the contested federal
constitutional questions, and thus, “when [the subsequent]
case was filed in federal court, it was entirely possible that
the Texas courts would have resolved this case ... without
reaching the federal constitutional questions.” Id. at 12,
107 S.Ct. 1519. In the present case, Plaintiffs raised their
constitutional claims in the state court prior to the entry of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1381 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 27 Document 58-2

9

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

the Consent Judgment. The state court, through the Consent
Judgment and without taking evidence, adjudicated those
claims as to the settling parties. The Consent Judgment is
effective through the 2020 Election and specifies no further
basis upon which Plaintiffs here may seek relief. As a result,
there does not appear to be any relief available to Plaintiffs
for the federal questions raised here. For these reasons, this
court will also decline to abstain under Pennzoil.

3. Pullman Abstention
Pullman abstention can be exercised where: (1) there is “an
unclear issue of state law presented for decision”; and (2)
resolution of that unclear state law issue “may moot or present
in a different posture the federal constitutional issue such
that the state law issue is potentially dispositive.” Educ.
Servs., Inc. v. Md. State Bd. for Higher Educ., 710 F.2d
170, 174 (4th Cir. 1983); see also N.C. State Conference of
NAACP v. Cooper, 397 F. Supp. 3d 786, 794 (M.D.N.C.
2019). Pullman does not apply here because any issues of
state law are not, in this court's opinion, unclear or ambiguous.
Alliance's brief in Moore posits that “whether NCSBE has
the authority to enter the Consent Judgment and promulgate
the Numbered Memos” are at the center of this case, thereby
urging Pullman abstention. (Alliance Resp. (Doc. 64 at 12).)
SBE has undisputed authority to issue guidance consistent
with state law and may issue guidance contrary to state law
only in response to natural disasters – the court finds this,
though ultimately unnecessary to the relief issued in this
case, fairly clear. (See discussion supra at Part II.E.2.b.ii.)
Moreover, this court has already expressly assessed and
upheld the North Carolina state witness requirement, which
is the primary state law at issue in this case. Democracy N.
Carolina, ––– F.Supp.3d at ––––, 2020 WL 4484063, at *48.
*11 Furthermore, Defendants and Intervenors would
additionally need to show how “resolution of ... state
law issues pending in state court” would “eliminate or
substantially modify the federal constitutional issues raised
in Plaintiffs’ Complaint.” N.C. State Conference of NAACP,
397 F. Supp. 3d at 796. As Alliance notes, the Plaintiffs did
not appeal the state court's conclusions, but sought relief in
federal court – there is no state law issue pending in state court
here. For all of these reasons, this court declines to abstain
under Pullman.
C. Issue Preclusion

Collateral estoppel, or issue preclusion “refers to the effect
of a prior judgment in foreclosing successive litigation of an
issue of fact or law actually litigated and resolved in a valid
court determination essential to the prior judgment, whether
or not the issue arises on the same or a different claim.” New
Hampshire v. Maine, 532 U.S. 742, 748-49, 121 S.Ct. 1808,
149 L.Ed.2d 968 (2001). The purpose of this doctrine is to
“protect the integrity of the judicial process ....” Id. at 749,
121 S.Ct. 1808 (internal quotations omitted).
Plaintiffs argue that issue preclusion does not bar their Equal
Protection claims. Citing Arizona v. California, 530 U.S.
392, 120 S.Ct. 2304, 147 L.Ed.2d 374 (2000), Plaintiffs
in Wise argue that a negotiated settlement between parties,
like the consent judgment between the Alliance Intervenors
and Defendant SBE in Wake County Superior Court, does
not constitute a final judgment for issue preclusion. (Wise
Pls.’ Mot. (Doc. 43) at 23.) Plaintiffs in Moore, citing In re
Microsoft Corp. Antitrust Litig., 355 F.3d 322 (4th Cir. 2004),
argue that issue preclusion cannot be asserted because the
Individual Plaintiffs in Moore were not parties to the state
court litigation that resulted in the consent judgment. (Moore
Pls.’ Mot. (Doc. 60) at 4.)
In response, Defendant SBE argues that, under North Carolina
law, issue preclusion applies where (1) the issue is identical to
the issue actually litigated and necessary to a prior judgment,
(2) the prior action resulted in a final judgment on the merits,
and (3) the plaintiffs in the latter action are the same as, or
in privity with, the parties in the earlier action, (SBE Resp.
(Doc. 65) at 7), and the parties in these federal actions and
those in the state actions are in privity under the third element
of the test, (id. at 8).
This court finds that issue preclusion does not bar Plaintiffs’
claims. In Arizona v. California, the Supreme Court held
that “[i]n most circumstances, it is recognized that consent
agreements ordinarily are intended to preclude any further
litigation on the claim presented but are not intended to
preclude further litigation on any of the issues presented.”
530 U.S. at 414, 120 S.Ct. 2304 (internal quotations
omitted). Moreover, “settlements ordinarily occasion no issue
preclusion ... unless it is clear ... that the parties intend their
agreement to have such an effect.” Id.
The Consent Judgment SBE and Alliance entered into does
not clearly demonstrate that they intended their agreement
to have an issue preclusive effect with regard to claims
brought now by Plaintiffs in Moore and Wise. The language

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1382 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 27 Document 58-2

10

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

of the Consent Judgment demonstrates that it “constitutes
a settlement and resolution of Plaintiffs’ claims against
Executive Defendants pending in this Lawsuit” and that
“by signing this Stipulation and Consent Judgment, they are
releasing any claims ... that they might have against Executive
Defendants.” (State Court Consent Judgment (Doc. 45-1) at
14 (emphasis added).) Although Timothy Moore and Philip
Berger, State Legislative Plaintiffs in Moore, were DefendantIntervenors in the NC Alliance action, they were not parties to
the consent judgment. (Id.) Thus, because the plain language
of the agreement did not expressly indicate an intention
to preclude Plaintiffs Moore and Berger from litigating the
issue in subsequent litigation, neither these State Legislative
Plaintiffs, nor any other parties with whom they may or may
not be in privity, are estopped from raising these claims now
before this court.
D. Plaintiffs’ Equal Protection Claims
*12 Plaintiffs raise “two separate theories of an equal
protection violation,” – a “vote dilution claim, and an
arbitrariness claim.” (Oral Argument Tr. (Doc. 70) at 52; see
also Wise Pls.’ Mot. (Doc. 43) at 12-15.)

1. Voting Harms Prohibited by the Equal Protection
Clause
Under the Fourteenth Amendment of the U.S. Constitution,
a state may not “deny to any person within its jurisdiction
the equal protection of the laws.” U.S. Const. amend. XIV.
The Fourteenth Amendment is one of several constitutional
provisions that “protects the right of all qualified citizens to
vote, in state as well as federal elections.” Reynolds v. Sims,
377 U.S. 533, 554, 84 S.Ct. 1362, 12 L.Ed.2d 506 (1964).
Because the Fourteenth Amendment protects not only the
“initial allocation of the franchise,” as well as “to the manner
of its exercise,” Bush v. Gore, 531 U.S. 98, 104, 121 S.Ct.
525, 148 L.Ed.2d 388 (2000), “lines may not be drawn which
are inconsistent with the Equal Protection Clause ....” Id. at
105, 121 S.Ct. 525 (citing Harper v. Va. State Bd. of Elections,
383 U.S. 663, 665, 86 S.Ct. 1079, 16 L.Ed.2d 169 (1966)).
The Supreme Court has identified two theories of voting
harms prohibited by the Fourteenth Amendment. First, the
Court has identified a harm caused by “debasement or
dilution of the weight of a citizen's vote,” also referred to
“vote dilution.” Reynolds, 377 U.S. at 555, 84 S.Ct. 1362.
Courts find this harm arises where gerrymandering under

a redistricting plan has diluted the “requirement that all
citizens’ votes be weighted equally, known as the one person,
one vote principle,” and resulted in one group or community's
vote counting more than another's. Raleigh Wake Citizens
Ass'n v. Wake Cnty. Bd. of Elections, 827 F.3d 333, 340 (4th
Cir. 2016); see also Gill v. Whitford, 585 U.S. ––––, ––––,
138 S. Ct. 1916, 1930-31, 201 L.Ed.2d 313 (2018) (finding
that the “harm” of vote dilution “arises from the particular
composition of the voter's own district, which causes his vote
– having been packed or cracked – to carry less weight than
it would carry in another, hypothetical district”); Wesberry v.
Sanders, 376 U.S. 1, 18, 84 S.Ct. 526, 11 L.Ed.2d 481 (1964)
(finding that vote dilution occurred where congressional
districts did not guarantee “equal representation for equal
numbers of people”); Wright v. North Carolina, 787 F.3d 256,
268 (4th Cir. 2015) (invalidating a voter redistricting plan).
Second, the Court has found that the Equal Protection Clause
is violated where the state, “[h]aving once granted the right
to vote on equal terms,” through “later arbitrary and disparate
treatment, value[s] one person's vote over that of another.”
Bush, 531 U.S. at 104-05, 121 S.Ct. 525 (2000); see also
Baker v. Carr, 369 U.S. 186, 208, 82 S.Ct. 691, 7 L.Ed.2d
663 (1962) (“A citizen's right to a vote free of arbitrary
impairment by state action has been judicially recognized as
a right secured by the Constitution, when such impairment
resulted from dilution by a false tally, or by a refusal to
count votes from arbitrarily selected precincts, or by a stuffing
of the ballot box.”) (internal citations omitted). This second
theory of voting harms requires courts to balance competing
concerns around access to the ballot. On the one hand, a state
should not engage in practices which prevent qualified voters
from exercising their right to vote. A state must ensure that
there is “no preferred class of voters but equality among those
who meet the basic qualifications.” Gray v. Sanders, 372 U.S.
368, 379-80, 83 S.Ct. 801, 9 L.Ed.2d 821 (1963). On the other
hand, the state must protect against “the diluting effect of
illegal ballots.” Id. at 380, 83 S.Ct. 801. Because “the right to
have one's vote counted has the same dignity as the right to put
a ballot in a box,” id., the vote dilution occurs only where there
is both “arbitrary and disparate treatment.” Bush, 531 U.S. at
105, 121 S.Ct. 525. To this end, states must have “specific
rules designed to ensure uniform treatment” of a voter's ballot.
Id. at 106, 121 S.Ct. 525.

2. Standing to Bring Equal Protection Claims

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1383 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 27 Document 58-2

11

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

*13 In light of the harms prohibited by the Equal Protection
Clause, this court must first consider whether Plaintiffs have
standing to bring these claims.
For a case or controversy to be justiciable in federal court, a
plaintiff must allege “such a personal stake in the outcome of
the controversy as to warrant his invocation of federal court
jurisdiction and to justify exercise of the court's remedial
powers on his behalf.” White Tail Park, Inc. v. Stroube, 413
F.3d 451, 458 (4th Cir. 2005) (quoting Planned Parenthood of
S.C. Inc. v. Rose, 361 F.3d 786, 789 (4th Cir. 2004)).
The party seeking to invoke the federal courts’ jurisdiction
has the burden of satisfying Article III's standing requirement.
Miller v. Brown, 462 F.3d 312, 316 (4th Cir. 2006). To meet
that burden, a plaintiff must demonstrate three elements: (1)
that the plaintiff has suffered an injury in fact that is “concrete
and particularized” and “actual or imminent”; (2) that the
injury is fairly traceable to the challenged conduct of the
defendant; and (3) that a favorable decision is likely to redress
the injury. Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992).

First, under a vote dilution theory, they argue that courts
have “repeatedly rejected this theory as a basis for standing,
both because it is unduly speculative and impermissibly
generalized.” (Alliance Resp. (Doc. 64) at 17.) Second, under
an arbitrary and disparate treatment theory, they argue that the
injury is too generalized because the Numbered Memoranda
apply equally to all voters across the state and that Plaintiffs
“cannot claim an injury for not having to go through a
remedial process put in place for other voters.” (SBE Resp.
(Doc. 65) at 12.)
Plaintiffs in Moore and Wise do not address standing for
their Equal Protection claims in their memoranda in support
of their motions for a preliminary injunction. (See Wise
Pls.’ Mot. (Doc. 43); Moore Pls.’ Mot. (Doc. 60).) At oral
argument held on October 8, 2020, however, counsel for the
Moore Plaintiffs responded to Defendant SBE and Alliance
Intervenor's standing arguments. (Oral Argument Tr. (Doc.
70) at 52-59.)

In the voting context, “voters who allege facts showing
disadvantage to themselves as individuals have standing to
sue,” Baker, 369 U.S. at 206, 82 S.Ct. 691, so long as their
claimed injuries are “distinct from a ‘generally available
grievance about the government,’ ” Gill, 138 S. Ct. at 1923
(quoting Lance v. Coffman, 549 U.S. 437, 439, 127 S.Ct.
1194, 167 L.Ed.2d 29 (2007) (per curiam)).

*14 First, under a vote dilution theory, counsel argued that
“the Defendants confuse a widespread injury with not having
a personal injury,” (id. at 53), and that the Supreme Court's
decision in Reynolds demonstrates that “impermissible vote
dilution occurs when there's ballot box stuffing,” (id.),
suggesting that each voter would have standing to sue under
the Supreme Court's precedent in Reynolds because their vote
has less value. (Id.) Second, under an arbitrary and disparate
treatment theory, counsel argued that Plaintiffs were subjected
to the witness requirement and that “[t]here are burdens
associated with that” which support a finding of an injury in
fact. (Id. at 56.) Counsel argued the harm that is occurring
is not speculative because, for example, voters have and
will continue to fail to comply with the witness requirement,
(id. at 55-56), and ballots will arrive between the third and
ninth day following the election pursuant to the Postmark
Requirement, (id. at 58). Moreover, counsel argued that the
“regime” imposed by the state is arbitrary, citing limitations
on assistance allowed to complete a ballot, compared to the
lessened restrictions associated with the witness requirement
under Numbered Memo 2020-19. (Id. at 59.)

Defendant SBE and Alliance Intervenors argue that
Individual Plaintiffs in Wise and Moore have not alleged a
concrete and particularized injury under either of the two
Equal Protection theories. (Alliance Resp. (Doc. 64) at 14-15;
SBE Resp. (Doc. 65) at 12-13.)

This court finds that Individual Plaintiffs in Moore and Wise
have not articulated a cognizable injury in fact for their vote
dilution claims. However, all of the Individual Plaintiffs in
Moore, and one Individual Plaintiff in Wise have articulated
an injury in fact for an arbitrary and disparate treatment claim.

In multi-plaintiff cases, “[a]t least one plaintiff must have
standing to seek each form of relief requested in the
complaint.” Town of Chester v. Laroe Estates, Inc., 581 U.S.
––––, ––––, 137 S. Ct. 1645, 1651, 198 L.Ed.2d 64 (2017).
Further, if there is one plaintiff “who has demonstrated
standing to assert these rights as his own,” the court “need not
consider whether the other individual and corporate plaintiffs
have standing to maintain the suit.” Vill. of Arlington Heights
v. Metro. Hous. Dev. Corp., 429 U.S. 252, 264 & n.9, 97 S.Ct.
555, 50 L.Ed.2d 450 (1977).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1384 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 27 Document 58-2

12

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

a. Vote Dilution
Although the Supreme Court has “long recognized that a
person's right to vote is ‘individual and personal in nature.’ ”
Gill, 138 S. Ct. at 1930 (citing Reynolds, 377 U.S. at 561, 84
S.Ct. 1362), the Court has expressly held that “vote dilution”
refers specifically to “invidiously minimizing or canceling
out the voting potential of racial or ethnic minorities,” Abbott
v. Perez, 585 U.S. ––––, ––––, 138 S. Ct. 2305, 2314, 201
L.Ed.2d 714 (2018) (internal quotations and modifications
omitted) (emphasis added), a harm which occurs where “the
particular composition of the voter's own district ... causes his
vote – having been packed or cracked – to carry less weight
than it would carry in another, hypothetical district.” Gill, 138
S. Ct. at 1931.
Indeed, lower courts which have addressed standing in vote
dilution cases arising out of the possibility of unlawful
or invalid ballots being counted, as Plaintiffs have argued
here, have said that this harm is unduly speculative and
impermissibly generalized because all voters in a state
are affected, rather than a small group of voters. See,
e.g., Donald J. Trump for President, Inc. v. Cegavske,
Case No. 2:20-CV-1445 JCM (VCF), ––– F.Supp.3d ––––,
––––, 2020 WL 5626974, at *4 (D. Nev. Sept. 18, 2020)
(“As with other generally available grievances about the
government, plaintiffs seek relief on behalf of their member
voters that no more directly and tangibly benefits them
than it does the public at large.”) (internal quotations and
modifications omitted); Martel v. Condos, Case No. 5:20cv-131, ––– F.Supp.3d ––––, ––––, 2020 WL 5755289, at
*4 (D. Vt. Sept. 16, 2020) (“If every voter suffers the same
incremental dilution of the franchise caused by some thirdparty's fraudulent vote, then these voters have experienced
a generalized injury.”); Paher v. Cegavske, 457 F.Supp.3d
919, 926–27 (D. Nev. 2020) (“Plaintiffs’ purported injury of
having their votes diluted due to ostensible election fraud
may be conceivably raised by any Nevada voter.”); Am. Civil
Rights Union v. Martinez-Rivera, 166 F. Supp. 3d. 779, 789
(W.D. Tex. 2015) (“[T]he risk of vote dilution [is] speculative
and, as such, [is] more akin to a generalized grievance about
the government than an injury in fact.”).
Although “[i]t would over-simplify the standing analysis
to conclude that no state-wide election law is subject to
challenge simply because it affects all voters,” Martel, –––
F.Supp.3d at ––––, 2020 WL 5755289, at *4, the notion that
a single person's vote will be less valuable as a result of

unlawful or invalid ballots being cast is not a concrete and
particularized injury in fact necessary for Article III standing.
Compared to a claim of gerrymandering, in which the injury
is specific to a group of voters based on their racial identity or
the district where they live, all voters in North Carolina, not
just Individual Plaintiffs, would suffer the injury Individual
Plaintiffs allege. This court finds this injury too generalized to
give rise to a claim of vote dilution, and thus, neither Plaintiffs
in Moore nor in Wise have standing to bring their vote dilution
claims under the Equal Protection Clause.

b. Arbitrary and Disparate Treatment
*15 In Bush, the Supreme Court held that, “[h]aving once
granted the right to vote on equal terms, the State may not,
by later arbitrary and disparate treatment, value one person's
vote over that of another.” 531 U.S. at 104-05, 121 S.Ct.
525. Plaintiffs argue that they have been subjected to arbitrary
and disparate treatment because they voted under one set of
rules, and other voters, through the guidance in the Numbered
Memoranda, will be permitted to vote invalidly under a
different and unequal set of rules, and that this is a concrete
and particularized injury. (Oral Argument Tr. (Doc. 70) at
70-71.)
For the purposes of determining whether Plaintiffs have
standing, is it not “necessary to decide whether [Plaintiffs’]
allegations of impairment of their votes” by Defendant SBE's
actions “will, ultimately, entitle them to any relief,” Baker,
369 U.S. at 208, 82 S.Ct. 691; whether a harm has occurred
is best left to this court's analysis of the merits of Plaintiffs’
claims, (see discussion infra Section II.D.3). Instead, the
appropriate inquiry is, “[i]f such impairment does produce
a legally cognizable injury,” whether Plaintiffs “are among
those who have sustained it.” Baker, 369 U.S. at 208, 82 S.Ct.
691.
This court finds that Individual Plaintiffs in Moore and one
Individual Plaintiff in Wise have standing to raise an arbitrary
and disparate treatment claim because their injury is concrete,
particularized, and not speculative. Bobby Heath and Maxine
Whitley, the Individual Plaintiffs in Moore, are registered
North Carolina voters who voted absentee by mail and whose
ballots have been accepted by SBE. (Moore Compl. (Doc.
1) ¶¶ 9-10.) In Wise, Individual Plaintiff Patsy Wise is a
registered voter who cast her absentee ballot by mail. (Wise
Compl. (Doc. 1) ¶ 25.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1385 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 27 Document 58-2

13

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

If Plaintiffs Heath, Whitley, and Wise were voters who
intended to vote by mail but who had not yet submitted their
ballots, as is the case with the other Individual Plaintiffs in
Wise, (Wise Compl. (Doc. 1) ¶¶ 26-28), or voters who had
intended to vote in-person either during the Early Voting
period or on Election Day, then they would not in fact have
been impacted by the laws and procedures for submission
of absentee ballots by mail and the complained-of injury
would be merely “an injury common to all other registered
voters,” Martel, ––– F.Supp.3d at ––––, 2020 WL 5755289,
at *4. See also Donald J. Trump for President, Inc., –––
F.Supp.3d at ––––, 2020 WL 5626974, at *4 (“Plaintiffs never
describe how their member voters will be harmed by vote
dilution where other voters will not.”). Indeed, this court
finds that Individual Plaintiffs Clifford, Bambini, and Baum
in Wise do not have standing to challenge the Numbered
Memoranda, because any “shock[ ]” and “serious concern[s]”
they have that their vote “will be negated by improperly cast
or fraudulent ballots,” (Wise Compl. (Doc. 1) ¶¶ 26-28), is
merely speculative until such point that they have actually
voted by mail and had their ballots accepted, which Plaintiffs’
Complaint in Wise does not allege has occurred. (Id.)
Yet, because Plaintiffs Heath, Whitley, and Wise have, in fact,
already voted by mail, (Moore Compl. (Doc. 1) ¶¶ 9-10; Wise
Compl. (Doc. 1) ¶ 25), their injury is not speculative. Under
the Numbered Memoranda 2020-19, 2020-22, and 2020-23,
other voters who vote by mail will be subjected to a different
standard than that to which Plaintiffs Heath, Whitley, and
Wise were subjected when they cast their ballots by mail.
Assuming this is an injury that violates the Equal Protection
Clause, Baker, 369 U.S. at 208, 82 S.Ct. 691, the harm alleged
by Plaintiffs is particular to voters in Heath, Whitley, and
Wise's position, rather than a generalized injury that any
North Carolina voter could claim. For this reason, this court
finds that Individual Plaintiffs Heath, Whitley, and Wise have
standing to raise Equal Protection claims under an arbitrary
and disparate treatment theory. Because at least one plaintiff
in each of these multi-plaintiff cases has standing to seek
the relief requested, the court “need not consider whether
the other individual and corporate plaintiffs have standing to
maintain the suit.” Vill. of Arlington Heights, 429 U.S. at 264
& n.9, 97 S.Ct. 555.

3. Likelihood of Success on the Merits
*16 Having determined that Individual Plaintiffs have
standing to bring their arbitrary and disparate treatment

claims, this court now considers whether Plaintiffs’ claims are
likely to succeed on the merits. To demonstrate a likelihood
of success on the merits, “[a] plaintiff need not establish a
certainty of success, but must make a clear showing that he is
likely to succeed at trial.” Di Biase, 872 F.3d at 230.

a. Parties’ Arguments
Plaintiffs argue that four policies indicated in the Numbered
Memoranda are invalid under the Equal Protection Clause:
(1) the procedure which allows ballots without a witness
signature to be retroactively validated through the cure
procedure indicated in Revised Numbered Memo 2020-19
(“Witness Requirement Cure Procedure”); (2) the procedure
which allows absentee ballots to be received up to nine
days after Election Day if they are postmarked on Election
Day, as indicated in Numbered Memo 2020-19 (“Receipt
Deadline Extension”); and (3) the procedure which allows
for anonymous delivery of ballots to unmanned drop boxes,
as indicated in Numbered Memo 2020-23 (“Drop Box Cure
Procedure”); (4) the procedure which allows ballots to be
counted without a United States Postal Service postmark,
as indicated in Numbered Memo 2020-22 (“Postmark
Requirement Changes”). (Moore Compl. (Doc. 1) ¶ 93; Wise
Compl. (Doc. 1) ¶ 124; Wise Pls.’ Mot. (Doc. 43) at 13-14.)
Plaintiffs in Wise argue that the changes in these Memoranda
“guarantee that voters will be treated arbitrarily under the
ever-changing voting regimes.” (Wise Pls.’ Mot. (Doc. 43)
at 11.) Similarly, Plaintiffs in Moore argue that the three
Memoranda were issued “after tens of thousands of North
Carolinians cast their votes following the requirements set
by the General Assembly,” which deprives Plaintiffs “of
the Equal Protection Clause's guarantee because it allows
for ‘varying standards to determine what [i]s a legal vote.’
” (Moore Compl. (Doc. 1) ¶ 90 (citing Bush, 531 U.S. at 107,
121 S.Ct. 525).)
In response, Defendants argue that the Numbered Memoranda
will not lead to the arbitrary and disparate treatment of
ballots prohibited by the Supreme Court's decision in Bush
v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148 L.Ed.2d 388
(2000). Defendant SBE argues that the consent judgment and
Numbered Memos do “precisely what Bush contemplated: It
establishes uniform and adequate standards for determining
what is a legal vote, all of which apply statewide, well in
advance of Election Day. Indeed, the only thing stopping
uniform statewide standards from going into effect is the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1386 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 27 Document 58-2

14

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

TRO entered in these cases.” (SBE Resp. (Doc. 65) at 17.)
Moreover, Defendant SBE argues that the consent judgment
“simply establishes uniform standards that help county boards
ascertain which votes are lawful,” and “in no way lets votes
be cast unlawfully.” (Id. at 18.)
Alliance Intervenors argue that the Numbered Memos “apply
equally to all voters,” (Alliance Resp. (Doc. 64) at 18),
and “Plaintiffs have not articulated, let alone demonstrated,
how their right to vote – or anyone else's – is burdened or
valued unequally,” (id. at 19). Moreover, Alliance Intervenors
argue that the release of the Numbered Memoranda after the
election began does not raise equal protection issues because,
“[e]lection procedures often change after voting has started
to ensure that the fundamental right to vote is protected.” (Id.
at 20.)
Both Defendant SBE and Alliance Intervenors argue that the
release of the Numbered Memoranda after the election began
does not raise equal protection issues, as election procedures
often change after voting has started. (SBE Resp. (Doc.
65) at 18; Alliance Resp. (Doc. 64) at 20.) For example,
Defendant SBE argues that “[i]f it is unconstitutional to
extend the receipt deadline for absentee ballots to address mail
disruptions, then it would also be unconstitutional to extend
hours at polling places on Election Day to address power
outages or voting-machine malfunctions.” (SBE Resp. (Doc.
65) at 18 (citing N.C. Gen. Stat. § 163-166.01).) “Likewise,
the steps that the Board has repeatedly taken to ensure that
people can vote in the wake of natural disasters like hurricanes
would be invalid if those steps are implemented after voting
begins.” (Id.)

b. Analysis
*17 This court agrees with the parties that an Equal
Protection violation occurs where there is both arbitrary
and disparate treatment. Bush, 531 U.S. at 105, 121 S.Ct.
525. This court also agrees with Defendants that not all
disparate treatment rises to the level of an Equal Protection
violation. As Defendant SBE argues, the General Assembly
has empowered SBE to make changes to voting policies
and procedures throughout the election, including extending
hours at polling places or adjusting voting in response to
natural disasters. (SBE Resp. (Doc. 65) at 18.) Other federal
courts have upheld changes to election procedures even after
voting has commenced. For example, in 2018, a federal court
enjoined Florida's signature matching procedures and ordered

a cure process after the election. Democratic Exec. Comm. of
Fla. v. Detzner, 347 F. Supp. 3d 1017, 1031 (N.D. Fla. 2018),
appeal dismissed as moot sub nom. Democratic Exec. Comm.
of Fla. v. Nat'l Republican Senatorial Comm., 950 F.3d 790
(11th Cir. 2020). Similarly, a Georgia federal court in 2018
ordered a cure process in the middle of the absentee and early
voting periods. Martin v. Kemp, 341 F. Supp. 3d 1326 (N.D.
Ga. 2018), appeal dismiss sub nom. Martin v. Sec'y of State
of Ga., No. 18-14503-GG, 2018 WL 7139247 (11th Cir. Dec.
11, 2018).
A change in election rules that results in disparate treatment
shifts from constitutional to unconstitutional when these
rules are also arbitrary. The ordinary definition of the word
“arbitrary” refers to matters “[d]epending on individual
discretion” or “involving a determination made without
consideration of or regard for facts, circumstances, fixed
rules, or procedures.” Arbitrary, Black's Law Dictionary (11th
ed. 2019). This definition aligns with the Supreme Court's
holding in Reynolds and Bush, that the State must ensure
equal treatment of voters both at the time it grants citizens
the right to vote and throughout the election. Bush, 531 U.S.
at 104-05, 121 S.Ct. 525 (“Having once granted the right
to vote on equal terms, the State may not, by later arbitrary
and disparate treatment, value one person's vote over that of
another.”); Reynolds, 377 U.S. at 555, 84 S.Ct. 1362 (“[T]he
right of suffrage can be denied by a debasement or dilution of
the weight of a citizen's vote just as effectively as by wholly
prohibiting the free exercise of the franchise.”).
The requirement that a state “grant[ ] the right to vote on
equal terms,” Bush, 531 U.S. at 104, 121 S.Ct. 525, includes
protecting the public “from the diluting effect of illegal
ballots,” Gray, 372 U.S. at 380, 83 S.Ct. 801. To fulfill this
requirement, a state legislature must define the manner in
which voting should occur and the minimum requirements
for a valid, qualifying ballot. In North Carolina, the General
Assembly has passed laws defining the requirements for
permissible absentee voting, N.C. Gen. Stat. § 163-226 et
seq., including as recently as this summer, when it modified
the one-witness requirement, 2020 N.C. Sess. Laws 2020-17
(H.B. 1169) § 1.(a). As this court found in its order issuing
a preliminary injunction in Democracy, these requirements
reflect a desire by the General Assembly to prevent voter
fraud resulting from illegal voting practices. Democracy N.
Carolina, ––– F.Supp.3d at ––––, 2020 WL 4484063, at *35.
A state cannot uphold its obligation to ensure equal treatment
of all voters at every stage of the election if another body,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1387 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 27 Document 58-2

15

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

including SBE, is permitted to contravene the duly enacted
laws of the General Assembly and to permit ballots to be
counted that do not satisfy the fixed rules or procedures
the state legislature has deemed necessary to prevent illegal
voting. Any guidance SBE adopts must be consistent with the
guarantees of equal treatment contemplated by the General
Assembly and Equal Protection.

voted and returned my absentee ballot for the November 3,
2020 general election and that I have not voted and will not
vote more than one ballot in this election. I understand that
fraudulently or falsely completing this affidavit is a Class
I felony under Chapter 163 of the North Carolina General
Statutes.
(Moore v. Circosta, No. 1:20CV911 (Doc. 45-1) at 34.)

Thus, following this precedent, and the ordinary definition
of the word “arbitrary,” this court finds that SBE engages in
arbitrary behavior when it acts in ways that contravene the
fixed rules or procedures the state legislature has established
for voting and that fundamentally alter the definition of a
validly voted ballot, creating “preferred class[es] of voters.”
Gray, 372 U.S. at 380, 83 S.Ct. 801.

This “cure” affidavit language makes no mention of whether
a witness was in the presence of the voter at the time that the
voter cast their ballot, which is the essence of the Legislature's
Witness Requirement. 2020 N.C. Sess. Laws 2020-17 (H.B.
1169) § 1.(a). In fact, a voter could truthfully sign and affirm
this statement and have their ballot counted by their county
board of elections without any witness becoming involved in

*18 This definition of arbitrariness does not require this
court to consider whether the laws enacted by the General
Assembly violate other provisions in the North Carolina or
U.S. Constitution or whether there are better public policy
alternatives to the laws the General Assembly has enacted.
These are separate inquiries. This court's review is limited
to whether the challenged Numbered Memos are consistent
with state law and do not create a preferred class or classes
of voters.

i. Witness Requirement Cure Procedure
This court finds Plaintiffs have demonstrated a likelihood of
success on the merits with respect to their Equal Protection
challenge to the Witness Requirement Cure Procedure in
Revised Memo 2020-19.
Under the 2020 N.C. Sess. Laws 2020-17 (H.B. 1169) § 1.
(a), a witnessed absentee ballot must be “marked ... in the
presence of at least one [qualified] person ....” This clear
language dictates that the witness must be (1) physically
present with the voter, and (2) present at the time the ballot
is marked by the voter.
Revised Memo 2020-19 counsels that ballots missing a
witness signature may be cured where voters sign and affirm
the following statement:
I am submitting this affidavit to correct a problem with
missing information on the ballot envelope. I am an eligible
voter in this election and registered to vote in [name]
County, North Carolina. I solemnly swear or affirm that I

the process.6 Because the effect of this affidavit is to eliminate
the statutorily required witness requirement, this court finds
that Plaintiffs have demonstrated a likelihood of success on
the merits in proving that the Witness Requirement Cure
Procedure indicated in Revised Memo 2020-19 is arbitrary.
6

Plaintiffs do not challenge the use of the cure affidavit
for ballot deficiencies generally, aside from arguing
that the cure affidavit circumvents the statutory Witness
Requirement. (See Moore Compl. (Doc. 1) ¶ 93; Wise
Compl. (Doc. 1) ¶ 124.) Although not raised by Plaintiffs,
this courts finds the indefiniteness of the cure affidavit
language troubling as a means of correcting even curable
ballot deficiencies.
During oral arguments, Defendants did not and could
not clearly define what it means to “vote,” (see, e.g.,
Oral Argument Tr. (Doc. 70) at 130-32), which is all
that the affidavit requires voters to attest that they
have done. (Moore v. Circosta, No. 1:20CV911, State
Court Consent Judgment (Doc. 45-1) at 34.) Under the
vague “I voted” language used in the affidavit, a voter
who completed their ballot with assistance from an
unauthorized individual; a voter who does not qualify
for voting assistance; or a voter who simply delegated
the responsibility for completing their ballot to another
person could truthfully sign this affidavit, although all
three acts are prohibited under state law. See N.C. Gen.
Stat. § 163-226.3(a)(1). Because the cure affidavit does
not define what it means to vote, voters are permitted to
decide what that means for themselves.
This presents additional Equal Protection concerns. A
state must ensure that there is “no preferred class
of voters but equality among those who meet the
basic qualifications.” Gray, 372 U.S. at 380, 83 S.Ct.
801. Because the affidavit does not serve as an
adequate means to ensure that voters did not engage in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1388 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 27 Document 58-2

16

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332
unauthorized ballot casting procedures, inevitably, not
all voters will be held to the same standards for casting
their ballot. This is, by definition, arbitrary and disparate
treatment inconsistent with existing state law.
This court's concerns notwithstanding, however,
Plaintiffs do not challenge the use of a cure affidavit in
other contexts, so this court will decline to enjoin the use
of a cure affidavit beyond its application as an alternative
for compliance with the Witness Requirement.

*19 Based on counsel's statements at oral arguments,
Defendant SBE may contend that the guidance in Revised
Memo 2020-19 is not arbitrary because it was necessary to
resolve the Alliance state court action. (Oral Argument Tr.
(Doc. 70) at 105 (“Our reading then of state law is that the
Board has the authority to make adjustments in emergencies
or as a means of settling protracted litigation until the
General Assembly reconvenes.”).) However, Defendant
SBE's arguments to the state court judge and the court in the
Eastern District of North Carolina belie that assertion, as they
advised the state court that both the original Memo 2020-19
and the Revised Memo were issued “to ensure full compliance
with the injunction entered by Judge Osteen,” (SBE State
Court Br. (Doc. 68-1) at 15), and they advised the court in
the Eastern District of North Carolina that they had issued
the revised Memo 2020-19 “in order to comply with Judge
Osteen's preliminary injunction in the Democracy N.C. action
in the Middle District.” (TRO (Doc. 47) at 9.) As this
court more fully explains in its order issued in Democracy,
this court finds that Defendant SBE improperly used this
court's August Democracy Order to modify the witness
requirement. Democracy v. N. Carolina, No. 1:20CV457,
2020 WL 6058048 (M.D.N.C. Oct. 14, 2020) (enjoining
witness cure procedure). Because Defendant SBE acted
improperly in that fashion, this court declines to accept an
argument now that elimination of the witness requirement was
a rational and justifiable basis upon which to settle the state
lawsuit. Furthermore, it is difficult to conceive that SBE was
authorized to resolve a pending lawsuit that could create a
preferred class of voters: those who may submit an absentee
ballot without a witness under an affidavit with no definition
of the meaning of “vote.”
This court also finds Plaintiffs have demonstrated a likelihood
of success on the merits in proving disparate treatment
may result as a result of the elimination of the Witness
Requirement. Individual Plaintiffs Wise, Heath, and Whitley
assert that they voted absentee by mail, including complying
with the Witness Requirement. (Wise Compl. (Doc. 1) ¶ 25;
Moore Compl. (Doc. 1) ¶¶ 9-10.) Whether because a voter
inadvertently cast a ballot without a witness or because a

voter was aware of the “cure” procedure and thus, willfully
did not cast a ballot with a witness, there will be voters
whose ballots are cast without a witness. Accordingly, this
court finds that Plaintiffs have demonstrated a likelihood of
success on the merits in proving that the Witness Requirement
Cure Procedure indicated in Memo 2020-19 creates disparate
treatment.
Thus, because Plaintiffs have demonstrated a likelihood of
success on the merits with respect to arbitrary and disparate
treatment that may result from under Witness Requirement
Cure Procedure in Revised Memo 2020-19, this court finds
Plaintiffs have established a likelihood of success on their
Equal Protection claim.

ii. Receipt Deadline Extension
This court finds that Plaintiffs are likely to succeed on their
Equal Protection challenge to the Receipt Deadline Extension
in Revised Memo 2020-19.
Under N.C. Gen. Stat. § 163-231(b), in order to be counted,
civilian absentee ballots must have been received by the
county board office by 5 p m. on Election Day, November
3, 2020, or if postmarked by Election Day, by 5:00 p m. on
November 6, 2020. The guidance in Revised Memo 2020-19
extends the time in which absentee ballots must be returned,
allowing a late civilian ballot to be counted if postmarked
on or before Election Day and received by 5:00 p m. on
November 12, 2020 (Revised Memo 2020-19 (Doc. 36-3) at
5.)
Alliance Intervenors argue that, “[t]o the extent Numbered
Memo 2020-22 introduces a new deadline, it affects only the
counting of ballots for election officials after Election Day
has passed – not when voters themselves must submit their
ballots. All North Carolina absentee voters still must mail
their ballots by Election Day.” (Alliance Resp. (Doc. 64) at
21.)
This court disagrees, finding Plaintiffs have demonstrated
a likelihood of success on the merits in proving that this
change contravenes the express deadline established by the
General Assembly, by extending the deadline from three
days after Election Day, to nine days after Election Day.
Moreover, it results in disparate treatment, as voters like
Individual Plaintiffs returned their ballots within the timeframe permitted under state law, (Wise Compl. (Doc. 1) ¶

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1389 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 27 Document 58-2

17

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

25; Moore Compl. (Doc. 1) ¶¶ 9-10), but other voters whose
ballots would otherwise not be counted if received three days
after Election Day, will now have an additional six days to
return their ballot.
Because Plaintiffs have demonstrated a likelihood of success
on the merits in proving arbitrary and disparate treatment
may result under the Receipt Deadline Extension, this court
finds Plaintiffs have established a likelihood of success on the
merits of their Equal Protection claim.

iii. Drop Box Cure Procedure
*20 Plaintiffs have failed to establish a likelihood of success,
however, on their Equal Protection challenge to the Drop
Box Cure Procedure indicated in Numbered Memo 2020-23.
(Wise, No. 1:20CV912, Memo 2020-23 (Doc. 1-4).)
N.C. Gen. Stat. § 163-226.3(a)(5) makes it a felony for any
person other than the voter's near relative or legal guardian
to take possession of an absentee ballot of another voter for
delivery or for return to a county board of elections.
“Because of this provision in the law,” and the need to ensure
compliance with it, SBE recognized in Memo 2020-23 that,
“an absentee ballot may not be left in an unmanned drop
box,” (Wise, No. 1:20CV912, Memo 2020-23 (Doc. 1-4) at
2), and directed county boards which have a “drop box, slot,
or similar container at their office” for other business purposes
to place a “sign indicating that absentee ballots may not be
deposited in it.” (Id.)
Moreover, the guidance reminds county boards that they must
keep a written log when any person returns an absentee ballot
in person, which includes the name of the individual returning
the ballot, their relationship to the voter, the ballot number,
and the date it was received. (Id. at 3.) If the individual who
drops off the ballot is not the voter, their near relative, or
legal guardian, the log must also record their address and
phone number. (Id.) The guidance also advises county boards
that “[f]ailure to comply with the logging requirement, or
delivery or an absentee ballot by a person other than the
voter, the voter's near relative, or the voter's legal guardian,
is not sufficient evidence in and of itself to establish that the
voter did not lawfully vote their ballot.” (Id. at 3.) Instead,
the guidance advises the county board that they “may ...
consider the delivery of a ballot ... in conjunction with other

evidence in determining whether the ballot is valid and should
be counted.” (Id. at 4.)
Plaintiffs argue that this guidance “undermines the General
Assembly's criminal prohibition of the unlawful delivery of
ballots,” (Moore Compl. (Doc. 1) ¶ 68), and “effectively
allow[s] voters to use drop boxes for absentee ballots,” (Wise
Pls.’ Mot. (Doc. 43) at 13), and thus, violates the Equal
Protection Clause, (Moore Compl. (Doc. 1) ¶ 93). This court
disagrees.
Although Numbered Memo 2020-23 was released on
September 22, 2020, (Wise, No. 1:20CV912, Memo 2020-23
(Doc. 1-4) at 2), the guidance it contains is not new.
Consistent with the guidance in Numbered Memo 2020-23,
SBE administrative rules adopted on December 1, 2018,
require that any person delivering a ballot to a county board
of elections office provide:
(1) Name of voter;
(2) Name of person delivering ballot;
(3) Relationship to voter;
(4) Phone Number (if available) and current address of
person delivering ballot;
(5) Date and time of delivery of ballot; and
(6) Signature or mark of person delivering ballot certifying
that the information provided is true and correct and that
the person is the voter or the voter's near relative as defined
in [N.C. Gen. Stat § 163-226(f)] or verifiable legal guardian
as defined in [N.C. Gen. Stat. § 163-226(e)].
8 N.C. Admin. Code 18.0102 (2018). Moreover, the
administrative rule states that “the county board of elections
may consider the delivery of a ballot in accordance with
this Rule in conjunction with other evidence in determining
whether the container-return envelope has been properly
executed according to the requirements of [N.C. Gen. Stat.
§ 163-231],” (id.), and that “[f]ailure to comply with this
Rule shall not constitute evidence sufficient in and of itself
to establish that the voter did not lawfully vote his or her
ballot.” (Id.)
*21 Because the guidance contained in Numbered Memo
2020-23 was already in effect at the start of this election as
a result of SBE's administrative rules, Individual Plaintiffs
were already subject to it at the time that they cast their
votes. Accordingly, because all voters were subject to the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1390 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 27 Document 58-2

18

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

same guidance, Plaintiffs have not demonstrated a likelihood
of success on the merits in proving disparate treatment.
It is a closer issue with respect to whether Plaintiffs have
demonstrated a likelihood of success on the merits in proving
that the rules promulgated by Defendant SBE are inconsistent
with N.C. Gen. Stat. § 163-226.3(a)(5).
This statute makes it a felony for any person other than the
voter's near relative or legal guardian to take possession of
an absentee ballot of another voter for delivery or for return
to a county board of elections. Id. It would seem logically
inconsistent that the General Assembly would criminalize this
behavior, while at the same time, permit ballots returned by
unauthorized third parties to be considered valid. Yet, upon
review of the legislative history, this court finds the felony
statute has been in force since 1979, 1979 N.C. Sess. Laws Ch.
799 (S.B. 519) § 4, https://www ncleg.gov/enactedlegislation/
sessionlaws/pdf/1979-1980/sl1979-799.pdf (last visited Oct.
13, 2020), and in its current form since 2013. 2013 N.C. Sess.
Laws 381 (H.B. 589) § 4.6.(a).
That the General Assembly, by not taking legislative action,
and instead, permitted SBE's administrative rule and the
General Assembly's statute to coexist for nearly two years
and through several other elections undermines Plaintiffs’
argument that Defendant SBE has acted arbitrarily. For this
reason, this court finds that Plaintiffs have not demonstrated a
likelihood of success on the merits in proving the arbitrariness
of the guidance in Numbered Memo 2020-23 and accordingly,
Plaintiffs have failed to establish a likelihood of success
on their Equal Protection challenge to Numbered Memo
2020-23.
If the General Assembly believes that SBE's administrative
rules are inconsistent with its public policy goals, they are
empowered to pass legislation which overturns the practice
permitted under the administrative rule.

iv. Postmark Requirement Changes
Similarly, this court finds that Plaintiffs have failed to
establish likelihood of success on the merits with respect to
their Equal Protection challenge to the Postmark Requirement
Changes in Numbered Memo 2020-22. (Wise, 1:20CV912,
Memo 2020-22 (Doc. 1-3).)

Under Numbered Memo 2020-22, a ballot will be considered
postmarked by Election Day if it has a USPS postmark, there
is information in BallotTrax, or “another tracking service
offered by the USPS or a commercial carrier, indicat[es] that
the ballot was in the custody of USPS or the commercial
carrier on or before Election Day.” (Id. at 3.) This court
finds that these changes are consistent with N.C. Gen. Stat.
§ 163-231(b)(2)b, which does not define what constitutes a
“postmark,” and instead, merely states that ballots received
after 5:00 p m. on Election Day may not be accepted unless
the ballot is “postmarked and that postmark is dated on or
before the day of the ... general election ... and are received
by the county board of elections not later than three days after
the election by 5:00 p.m.”
In the absence of a statutory definition for postmark, this
court finds Plaintiffs have not demonstrated a likelihood
of success on the merits in proving that Numbered Memo
2020-22 is inconsistent with N.C. Gen. Stat. § 163-231(b)
(2)b, and thus, arbitrary. If the General Assembly believes
that the Postmark Requirement Changes indicated in Memo
2020-22 are inconsistent with its public policy goals, they
are empowered to pass legislation which further specifies the
definition of a “postmark.” In the absence of such legislation,
however, this court finds that Plaintiffs have failed to establish
a likelihood of success on the merits of their Equal Protection
challenge.

4. Irreparable Harm
*22 In addition to a likelihood of success on the merits,
a plaintiff must also make a “clear showing that it is likely
to be irreparably harmed absent preliminary relief” in order
to obtain a preliminary injunction. UBS Fin. Servs. Inc. v.
Carilion Clinic, 880 F. Supp. 2d 724, 733 (E.D. Va. 2012)
(quoting Real Truth About Obama, Inc. v. Fed. Election
Comm'n, 575 F.3d 342, 347 (4th Cir. 2009)). Further, an
injury is typically deemed irreparable if monetary damages
are inadequate or difficult to ascertain. See Multi-Channel TV
Cable Co. v. Charlottesville Quality Cable Operating Co., 22
F.3d 546, 551 (4th Cir. 1994), abrogated on other grounds by
Winter, 555 U.S. at 22, 129 S.Ct. 365. “Courts routinely deem
restrictions on fundamental voting rights irreparable injury.”
League of Women Voters of N.C. v. North Carolina, 769 F.3d
224, 247 (4th Cir. 2014). “[O]nce the election occurs, there
can be no do-over and no redress. The injury to these voters
is real and completely irreparable if nothing is done to enjoin
th[ese] law[s].” Id.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1391 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 27 Document 58-2

19

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

The court therefore finds Plaintiffs have demonstrated a
likelihood of irreparable injury regarding the Equal Protection
challenges to the Witness Requirement and the Receipt
Deadline Extension.

5. Balance of Equities
The third factor in determining whether preliminary relief
is appropriate is whether the plaintiff demonstrates “that the
balance of equities tips in his favors.” Winter, 555 U.S. at 20,
129 S.Ct. 365.
The Supreme Court's decision in Purcell v. Gonzalez, 549
U.S. 1, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006), urges that this
court should issue injunctive relief as narrowly as possible.
The Supreme Court has made clear that “lower federal courts
should ordinarily not alter the election rules on the eve of
an election,” Republican Nat'l Comm. v. Democratic Nat'l
Comm., 589 U.S. ––––, ––––, 140 S. Ct. 1205, 1207, 206
L.Ed.2d 452 (2020) (per curiam), as a court order affecting
election rules will progressively increase the risk of “voter
confusion” as “an election draws closer.” Purcell, 549 U.S. at
4-5, 127 S.Ct. 5; see also Texas All. for Retired Americans
v. Hughs, ––– F.3d ––––, ––––, 2020 WL 5816887, at *2
(5th Cir. Sept. 30, 2020) (“The principle ... is clear: court
changes of election laws close in time to the election are
strongly disfavored.”). This year alone, the Purcell doctrine of
noninterference has been invoked by federal courts in cases
involving witness requirements and cure provisions during
COVID-19, Clark v. Edwards, Civil Action No. 20-283-SDDRLB, ––– F.Supp.3d ––––, –––– – ––––, 2020 WL 3415376,
at *1-2 (M.D. La. June 22, 2020); the implementation of an
all-mail election plan developed by county election officials,
Paher v. Cegavske, 2020 WL 2748301, at *1, *6 (D. Nev.
2020); and the use of college IDs for voting, Common Cause
v. Thomsen, No. 19-cv-323-JDP, 2020 WL 5665475, at *1
(W.D. Wis. Sept. 23, 2020) – just to name a few.
Purcell is not a per se rejection of any injunctive relief close
to an election. However, as the Supreme Court's restoration of
the South Carolina witness requirement last week illustrates,
a heavy thumb on the scale weighs against changes to voting
regulations. Andino v. Middleton, ––– U.S. ––––, ––– S.Ct.
––––, ––– L.Ed.2d ––––, 2020 WL 5887393, at *1 (Oct.
5, 2020) (Kavanaugh, J., concurring) (“By enjoining South
Carolina's witness requirement shortly before the election, the

District Court defied [the Purcell] principle and this Court's
precedents.”).
In this case, there are two SBE revisions where this court has
found that Plaintiffs are likely to succeed on the merits. First,
the Witness Requirement Cure Procedure, which determines
whether SBE will send the voter a cure certification or
spoil the ballot and issue a new one. This court has, on
separate grounds, already enjoined the Witness Requirement
Cure Procedure in Democracy North Carolina v. North
Carolina State Board of Elections, No. 1:20CV457, 2020
WL 6058048 (M.D.N.C. Oct. 14, 2020) (enjoining witness
cure procedure). Thus, the issue of injunctive relief on the
Witness Requirement Cure Procedure is moot at this time.
Nevertheless, in the absence of relief in Democracy, it seems
likely that SBE's creation of “preferred class[es] of voters”,
Gray, 372 U.S. at 380, 83 S.Ct. 801, with elimination of the
witness requirement and the cure procedure could merit relief
in this case.
*23 Ripe for this court's consideration is the Receipt
Deadline Extension, which contradicts state statutes
regarding when a ballot may be counted. Ultimately, this
court will decline to enjoin the Receipt Deadline Extension,
in spite of its likely unconstitutionality and the potential for
irreparable injury. The Purcell doctrine dictates that this court
must “ordinarily” refrain from interfering with election rules.
Republican Nat'l Comm., 140 S. Ct. at 1207. These issues may
be taken up by federal courts after the election, or at any time
in state courts and the legislature. However, in the middle of
an election, less than a month before Election Day itself, this
court cannot cause “judicially created confusion” by changing
election rules. Id. Accordingly, this court declines to impose a
preliminary injunction because the balance of equities weighs
heavily against such an injunction.
E. Plaintiffs’ Electors Clause and Elections Clause
Claims
As an initial matter, this court will address the substantive
issues of the Electors Clause and the Elections Clause
together. The Electors Clause of the U.S. Constitution
requires “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors” for
President. U.S. Const. art. II, § 1, cl. 2. Plaintiffs in Wise
argue that, in order to “effectuate” this Electors requirement,
“the State must complete its canvas of all votes cast by three
weeks after the general election” under N.C. Gen. Stat. §
163-182.5(c). (Wise Pls.’ Mot. (Doc. 43) at 15.) Plaintiffs
argue that (1) the extension of the ballot receipt deadline

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1392 Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 27 Document 58-2

20

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

and (2) the changing of the postmark requirement “threaten
to extend the process and threaten disenfranchisement,” as
North Carolina “must certify its electors by December 14 or
else lose its voice in the Electoral College. (Id.)
The meaning of “Legislature” within the Electors Clause can
be analyzed in the same way as “Legislature” within the
Elections Clause. For example,
As an initial matter, the Court finds no need to distinguish
between the term ‘Legislature’ as it is used in the
Elections Clause as opposed to the Electors Clause.
Not only were both these clauses adopted during the
1787 Constitutional Convention, but the clauses share a
“considerable similarity.
....
... [T]he Court finds that the term “Legislature” is used in
a sufficiently similar context in both clauses to properly
afford the term an identical meaning in both instances.
Donald J. Trump for President, Inc. v. Bullock, No. CV 20-66H-DLC, ––– F.Supp.3d ––––, ––––, 2020 WL 5810556, at
*11 (D. Mont. Sept. 30, 2020). Nor do Plaintiffs assert any
difference in the meaning they assign to “Legislature” and its
authority between the two Clauses.
This court finds that all Plaintiffs lack standing under either
Clause. The discussion infra of the Elections Clause applies
equally to the Electors Clause.

1. Elections Clause
a. Standing
The Elections Clause standing analysis differs in Moore
and Wise, though this court ultimately arrives at the same
conclusion in both cases.

i. Standing in Wise
In Wise, Plaintiffs are private parties clearly established by
Supreme Court precedent to have no standing to contest
the Elections Clause in this manner. Plaintiffs are individual
voters, a campaign committee, national political parties, and
two Members of the U.S. House of Representatives. Even
though Plaintiffs are part of the General Assembly, they bring

their Elections Clause claim alleging an institutional harm to
the General Assembly. Though the Plaintiffs claim to have
suffered “immediate and irreparable harm”, (Wise Compl.
(Doc. 1) ¶¶ 100, 109), this does not establish standing for their
Elections Clause claim or Electors Clause claim. See Corman
v. Torres, 287 F. Supp. 3d 558, 573 (M.D. Pa. 2018) (“[T]he
Elections Clause claims asserted in the verified complaint
belong, if they belong to anyone, only to the ... General
Assembly.”). The Supreme Court has already held that a
private citizen does not have standing to bring an Elections
Clause challenge without further, more particularized harms.
See Lance, 549 U.S. at 441-42, 127 S.Ct. 1194 (“The only
injury [private citizen] plaintiffs allege is that ... the Elections
Clause ... has not been followed. This injury is precisely
the kind of undifferentiated, generalized grievance about the
conduct of government that we have refused to countenance
in the past.”). Plaintiffs allege no such extra harms, and in
fact, do not speak to standing in their brief at all.

ii. Standing in Moore
*24 In Moore, both Plaintiff Moore and Plaintiff Berger
are leaders of chambers in the General Assembly. The
Plaintiffs allege harm stemming from SBE flouting the
General Assembly's institutional authority. (Wise Pls.’ Mot.
(Doc. 43) at 16.) However, as Proposed Intervenors NC
Alliance argue, “a subset of legislators has no standing to
bring a case based on purported harm to the Legislature as
a whole.” (Alliance Resp. (Doc. 64) at 15.) The Supreme
Court has held that legislative plaintiffs can bring Elections
Clause claims on behalf of the legislature itself only if they
allege some extra, particularized harm to themselves – or
some direct authority from the whole legislative body to bring
the legal claim. Specifically, the Supreme Court found a lack
of standing where “[legislative plaintiffs] have alleged no
injury to themselves as individuals”; where “the institutional
injury they allege is wholly abstract and widely disperse”; and
where the plaintiffs “have not been authorized to represent
their respective Houses of Congress in this action.” Raines v.
Byrd, 521 U.S. 811, 829, 117 S.Ct. 2312, 138 L.Ed.2d 849
(1997).
An opinion in a very similar case in the Middle District of
Pennsylvania is instructive:
[T]he claims in the complaint rest solely on the purported
usurpation of the Pennsylvania General Assembly's
exclusive rights under the Elections Clause of the United

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1393 Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 27 Document 58-2

21

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

States Constitution. We do not gainsay that these [two]
Senate leaders are in some sense aggrieved by the
Pennsylvania Supreme Court's actions. But that grievance
alone does not carry them over the standing bar. United
States Supreme Court precedent is clear — a legislator
suffers no Article III injury when alleged harm is borne
equally by all members of the legislature.
Corman, 287 F. Supp. 3d at 567. In the instant case, the two
members of the legislature do not allege individual injury. The
institutional injury they allege is dispersed across the entire
General Assembly. The crucial element, then, is whether
Moore and Berger are authorized by the General Assembly to
represent its interests. The General Assembly has not directly
authorized Plaintiffs to represent its interests in this specific
case. See Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm'n, 576 U.S. 787, 802, 135 S.Ct. 2652, 192 L.Ed.2d
704 (2015) (finding plaintiff “[t]he Arizona Legislature” had
standing in an Elections Clause case only because it was
“an institutional plaintiff asserting an institutional injury”
which “commenced this action after authorizing votes in
both of its chambers”). Moore and Berger argued the general
authorization in N.C. Gen. Stat. Section 120-32.6(b), which
explicitly authorizes them to represent the General Assembly
“[w]henever the validity or constitutionality of an act of the
General Assembly or a provision of the Constitution of North
Carolina is the subject of an action in any State or federal
court.” N.C. Gen. Stat. § 120-32.6(b). The text of § 120-32.6
references N.C. Gen. Stat. § 1-72.2, which further specifies
that Plaintiffs will “jointly have standing to intervene on
behalf of the General Assembly as a party in any judicial
proceeding challenging a North Carolina statute or provision
of the North Carolina Constitution.” (emphasis added).
Neither statute, however, authorizes them to represent the
General Assembly as a whole when acting as plaintiffs
in a case such as this one. See N.C. State Conference
of NAACP v. Berger, 970 F.3d 489, 501 (4th Cir. 2020)
(granting standing to Moore and Berger in case where
North Carolina law was directly challenged, distinguishing
“execution of the law” from “defense of a challenged act”).
The facts of this case do not match up with this court's
prior application of N.C. Gen. Stat. § 1-72.2, which has
been invoked where legislators defend the constitutionality
of legislation passed by the legislature when the executive
declines to do so. See Fisher-Borne v. Smith, 14 F. Supp.
3d 699, 703 (M.D.N.C. 2014). Furthermore, to the extent
Plaintiffs Moore and Berger disagree with the challenged
provisions of the Consent Judgment, they have not alleged
they lack the authority to bring the legislature back into

session to negate SBE's exercise of settlement authority. See
N.C. Gen. Stat. § 163-22.2.
*25 Thus, even Plaintiff Moore and Plaintiff Berger
lack standing to proceed with the Elections Clause claim.
Nonetheless, this court will briefly address the merits as well.

2. Merits of Elections Clause Claim
a. The ‘Legislature’ May Delegate to SBE
The Elections Clause of the U.S. Constitution states that the
“Times, Places, and Manner of holding Elections for Senators
and Representatives, shall be prescribed in each State by the
Legislature thereof.” U.S. Const. art. I, § 4, cl. 1. Plaintiffs
assert that the General Assembly instituted one such time/
place/manner rule regarding the election by passing H.B.
1169. Therefore, Plaintiffs argue, SBE “usurped the General
Assembly's authority” when it “plainly modif[ied]” what the
General Assembly had implemented. (Wise Pls.’ Mot. (Doc.
43) at 14.)
The Elections Clause certainly prevents entities other than the
legislature from unilaterally tinkering with election logistics
and procedures. However, Plaintiffs fail to establish that the
Elections Clause forbids the legislature itself from voluntarily
delegating this authority. The “Legislature” of a state may
constitutionally delegate the power to implement election
rules – even rules that may contradict previously enacted
statutes.
State legislatures historically have the power and ability
to delegate their legislative authority over elections and
remain in compliance with the Elections Clause. Ariz.
State Legislature, 576 U.S. at 816, 135 S.Ct. 2652
(noting that, despite the Elections Clause, “States retain
autonomy to establish their own governmental processes”).
Here, the North Carolina General Assembly has delegated
some authority to SBE to contravene previously enacted
statutes, particularly in the event of certain “unexpected
circumstances.” (SBE Resp. (Doc. 65) at 15.)
The General Assembly anticipated that SBE may need to
implement rules that would contradict previously enacted
statutes. See N.C. Gen. Stat. § 163-27.1(a) (“In exercising
those emergency powers, the Executive Director shall
avoid unnecessary conflict with the provisions of this
Chapter.” (emphasis added)). Plaintiffs claim that “[t]he

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1394 Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 27 Document 58-2

22

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

General Assembly could not, consistent with the Constitution
of the United States, delegate to the Board of Elections the
power to suspend or re-write the state's election laws.” (Wise
Compl. (Doc. 1) ¶ 97.) This would mean that the General
Assembly could not delegate any emergency powers to SBE.
For example, if a hurricane wiped out all the polling places in
North Carolina, Plaintiffs’ reading of the Constitution would
prohibit the legislature from delegating to SBE any power
to contradict earlier state law regarding election procedures.
(See SBE Resp. (Doc. 65) at 15).
As courts have adopted a broad understanding of
“Legislature” as written in the Elections Clause, see Corman,
287 F. Supp. 3d at 573, it follows that a valid delegation
from the General Assembly allowing SBE to override the
General Assembly in certain circumstances would not be
unconstitutional. See Donald J. Trump for President, –––
F.Supp.3d at ––––, 2020 WL 5810556, at *12 (finding that
the legislature's “decision to afford” the Governor certain
statutory powers to alter the time/place/manner of elections
was legitimate under the Elections Clause).

b. Whether SBE Exceeded Legitimate Delegated Powers
*26 The true question becomes, then, whether SBE was
truly acting within the power legitimately delegated to
it by the General Assembly. Even Proposed Intervenors
NC Alliance note that SBE's actions “could ... constitute
plausible violations of the Elections Clause if they
exceeded the authority granted to [SBE] by the General
Assembly.” (Alliance Resp. (Doc. 64) at 19.)
SBE used two sources of authority to enter into the Consent
Agreement changing the laws and rules of the election process
after it had begun: N.C. Gen. Stat. § 163-22.2 and § 163-27.1.

i. SBE's Authority to Avoid Protracted Litigation
First, this court finds that, while N.C. Gen. Stat. § 163-22.2
authorizes agreements in lieu of protracted litigation, it does
not authorize the extensive measures taken in the Consent
Agreement:
In the event any portion of Chapter 163 of the General
Statutes or any State election law or form of election of any
county board of commissioners, local board of education,
or city officer is held unconstitutional or invalid by a State

or federal court or is unenforceable because of objection
interposed by the United States Justice Department under
the Voting Rights Act of 1965 and such ruling adversely
affects the conduct and holding of any pending primary or
election, the State Board of Elections shall have authority to
make reasonable interim rules and regulations with respect
to the pending primary or election as it deems advisable
so long as they do not conflict with any provisions of
this Chapter 163 of the General Statutes and such rules
and regulations shall become null and void 60 days
after the convening of the next regular session of the
General Assembly. The State Board of Elections shall
also be authorized, upon recommendation of the Attorney
General, to enter into agreement with the courts in lieu
of protracted litigation until such time as the General
Assembly convenes.
N.C. Gen. Stat. § 163-22.2. While the authority delegated
under this statute is broad, it limits SBE's powers to
implementing rules that “do not conflict with any provisions
of this Chapter.” Moreover, this power appears to exist only
“until such time as the General Assembly convenes.” Id. By
eliminating the witness requirement, SBE implemented a rule
that conflicted directly with the statutes enacted by the North
Carolina legislature.
Moreover, SBE's power to “enter into agreement with
the courts in lieu of protracted litigation” is limited by
the language “until such time as the General Assembly
convenes.” Id. Plaintiffs appear to have a remedy to what they
contend is an overreach of SBE authority by convening.

ii. SBE's Power to Override the Legislature in an
Emergency
Second, Defendants rely upon N.C. Gen. Stat. § 163-27.1.
That statute provides:
(a) The Executive Director, as chief State elections official,
may exercise emergency powers to conduct an election
in a district where the normal schedule for the election is
disrupted by any of the following:
(1) A natural disaster.
(2) Extremely inclement weather.
(3) An armed conflict involving Armed Forces of the
United States, or mobilization of those forces, including

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1395 Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 27 Document 58-2

23

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

North Carolina National Guard and reserve components
of the Armed Forces of the United States.
N.C. Gen. Stat. § 163-27.1(a)(1-3). As neither (a)(2) or (3)
apply, the parties agree that only (a)(1), a natural disaster, is at
issue in this case. On March 10, 2020, the Governor of North
Carolina declared a state of emergency as a result of the spread
of COVID-19. N.C. Exec. Order No. 116 (March 10, 2020).
Notably, the Governor did not declare a disaster pursuant to
N.C. Gen. Stat. § 166A-19.21. Instead, on March 25, 2020, it
was the President of the United States who declared a state of
disaster existed in North Carolina:
*27 I have determined that the emergency conditions in
the State of North Carolina resulting from the Coronavirus
Disease 2019 (COVID-19) pandemic beginning on January
20, 2020, and continuing, are of sufficient severity and
magnitude to warrant a major disaster declaration under
the Robert T. Stafford Disaster Relief and Emergency
Assistance Act, 42 U.S.C. 5121 et seq. (the “Stafford Act”).
Therefore, I declare that such a major disaster exists in the
State of North Carolina.
Notice, North Carolina; Major Disaster and Related
Determinations, 85 Fed. Reg. 20701 (Mar. 25, 2020)
(emphasis added). The President cited the Stafford Act as
justification for declaring a major disaster. See 42 U.S.C.
§ 5122(2). Notably, neither the Governor's Emergency
Proclamation nor the Presidential Proclamation identified
COVID-19 as a natural disaster.
On March 12, 2020, the Executive Director of SBE, Karen
Brinson Bell (“Bell”), crafted an amendment to SBE's
Emergency Powers rule. Bell's proposed rule change provided
as follows:
(a) In exercising his or her emergency powers and
determining whether the “normal schedule” for the election
has been disrupted in accordance with G.S. 163A 750 ,
163-27.1, the Executive Director shall consider whether
one or more components of election administration has
been impaired. The Executive Director shall consult
with State Board members when exercising his or her
emergency powers if feasible given the circumstances set
forth in this Rule.
(b) For the purposes of G.S. 163A 750 , 163-27.1, the
following shall apply:
(1) A natural disaster or extremely inclement weather
include a: any of the following:
(A) Hurricane;

(B) Tornado;
(C) Storm or snowstorm;
(D) Flood;
(E) Tidal wave or tsunami;
(F) Earthquake or volcanic eruption;
(G) Landslide or mudslide; or
(H) Catastrophe arising from natural causes resulted
and resulting in a disaster declaration by the President
of the United States or the Governor. Governor, a
national emergency declaration by the President of
the United States, or a state of emergency declaration
issued under G.S. 166A-19.3(19). “Catastrophe
arising from natural causes” includes a disease
epidemic or other public health incident. The disease
epidemic or other public health incident must make
[that makes ] it impossible or extremely hazardous
for elections officials or voters to reach or otherwise
access the voting [place or that creates ] place, create
a significant risk of physical harm to persons in the
voting place, or [that ] would otherwise convince a
reasonable person to avoid traveling to or being in a
voting place.
https://files nc.gov/ncoah/documents/Rules/RRC/06182020Follow-up-Tab-B-Board-of-Elections.pdf at 5 (proposed
changes in strikethroughs, or underline.) Shortly after
submitting the rule change, effective March 20, 2020, SBE
declared COVID-19 a natural disaster, attempting to invoke
its authority under the Emergency Powers Statute, § 163-27.1.
However, the Rules Review Commission subsequently
unanimously rejected Bell's proposed rule change, finding in
part that there was a “lack of statutory authority as set forth
in G.S. 150B-21.9(a)(1),” and more specifically, that “the
[SBE] does not have the authority to expand the definition
of ‘natural disaster’ as proposed.” North Carolina Office
of Administrative Hearings, Rules Review Commission
Meeting Minutes (May 21, 2020), at 4 https://files nc.gov/
ncoah/Minutes-May-2020.pdf.
In a June 12, 2020 letter, the Rules Review Commission
Counsel indicated that Bell had responded to the
committee's findings by stating “that the agency will not
be submitting a new statement or additional findings,”
and, as a result, “the Rule [was] returned” to the agency.
Letter re: Return of Rule 08 NCAC 01.0106 (June

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1396 Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 27 Document 58-2

24

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

12, 2020) at 1 https://files nc.gov/ncoah/documents/Rules/
RRC/06182020-Follow-up-Tab-B-Board-of-Elections.pdf.
Despite the Rules Review Commission's rejection of Bell's
proposed changes, on July 17, 2020, Bell issued an
Emergency Order with the following findings:
*28 18. N.C. Gen. Stat. § 163-27.1 and 08 NCAC
01. 0106 authorize me to exercise emergency powers to
conduct an election where the normal schedule is disrupted
by a catastrophe arising from natural causes that has
resulted in a disaster declaration by the President of the
United States or the Governor, while avoiding unnecessary
conflict with the laws of North Carolina. The emergency
remedial measures set forth here are calculated to offset
the nature and scope of the disruption from the COVID-19
disaster.
19. Pursuant to N.C. Gen. Stat. § 163-27.1 and 08
NCAC 01. 0106(a) and (b), and after consultation with
the State Board, I have determined that the COVID-19
health emergency is a catastrophe arising from natural
causes — i.e., a naturally occurring virus — resulting
in a disaster declaration by the President of the United
States and a declaration of a state of emergency by the
Governor, and that the disaster has already disrupted and
continues to disrupt the schedule and has already impacted
and continues to impact multiple components of election
administration.
(Democracy N. Carolina, No. 1:20CV457 (Doc. 101-1) ¶¶
18-19.) This directly contradicted the Rules Commission's
finding that such a change was outside SBE's authority.
In keeping with Bell's actions, the State failed to note in
argument before this court that Bell's proposal had been
rejected explicitly because SBE lacked statutory authority
to exercise its emergency powers. In fact, at the close of
a hearing before this court, the State made the following
arguments:
but the Rules Review Commission declined to let it go
forward as a temporary rule, I think I'm remembering this
right, without stating why. But it did not go through.
In the meantime, the president had declared a state of
national -- natural disaster declaration. The president had
declared a disaster declaration, so under the existing rule,
the powers kicked into place.
....
And the statute that does allow her to make those
emergency decisions says in it, in exercising those

emergency decisions says in it, in exercising those
emergency powers, the Executive Director shall avoid
unnecessary conflict with the provisions of this chapter, this
chapter being Chapter 163 of the election laws.
(Democracy N. Carolina, No. 1:20CV457, Evidentiary Hr'g
Tr. vol. 3 (Doc. 114) at 109.) This court agrees with
the Rules Review Commission: re-writing the definition of
“natural disaster” is outside SBE's rulemaking authority. N.C.
Gen. Stat. § 163-27.1(a)(1) limits the Executive Director's
emergency powers to those circumstances where “the normal
schedule for the election is disrupted by any of the following:
(1) A natural disaster.”7
7

Notably, Bell makes no finding as to whether this is a
Type I, II, or III Declaration of Disaster, which would in
turn limit the term of the Disaster Declaration. See, e.g.,
N.C. Gen. Stat. § 166A-19.21.

Nor does the President's major disaster proclamation define
COVID-19 as a “natural disaster” – at least not as
contemplated by the state legislature when § 163-27.1 (or its
predecessor, § 163A-750) was passed. To the contrary, the
Emergency Powers are limited to an election “in a district
where the normal schedule for the election is disrupted.” N.C.
Gen. Stat. § 163-27.1(a). Nothing about COVID-19 disrupts
the normal schedule for the election as might be associated
with hurricanes, tornadoes, or other natural disasters.

(a) Elimination of the Witness Requirement
Finally, even if, as SBE argues, it had the authority to enter
into a Consent Agreement under its emergency powers, it
did not have the power to contradict statutory authority by
eliminating the witness requirement. See N.C. Gen. Stat.
§ 163-27.1(a) (“In exercising those emergency powers, the
Executive Director shall avoid unnecessary conflict with
the provisions of this Chapter.”) (emphasis added). The
legislature implemented a witness requirement and SBE
removed that requirement. This is certainly an unnecessary
conflict with the legislature's choices.
*29 By the State's own admission, any ballots not subject to
witnessing would be unverified. The State of North Carolina
argued as much in urging this court to uphold the one-witness
requirement:
As Director Bell testified, it is a basic bedrock principle
of elections that you have some form of verifying that the
voter is who they say they are; voter verification. As she

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1397 Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 27 Document 58-2

25

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

said, when a voter comes into the poll, whether that is on
election day proper or whether it is by –
....
Obviously, you can't do that when it is an absentee ballot.
Because you don't see the voter, you can't ask the questions.
So the witness requirement, the purpose of it is to have
some means that the person who sent me this is the person
-- the person who has sent this absentee ballot is who they
say they are. That's the purpose of the witness requirement.
The witness is witnessing that they saw this person, and
they know who they are, that they saw this person fill out
the ballot and prepare the ballot to mail in. And that is the
point of it.
And, as Director Bell testified, I mean, we've heard a lot
from the Plaintiffs about how many states do not have
witness requirements. And that is true, that the majority
of states, I think at this point, do not have a witness
requirement.
But as Director Bell testified, they're going to have one
of two things. They're going to either have the witness
requirement, or they're going to have a means of verifying
the signature ....
One thing -- and I think that is unquestionably an important
State interest. Some means of knowing that this ballot that
says it came from Alec Peters actually is from Alec Peters,
because somebody else put their name down and said, yes,
I saw Alec Peters do this. I saw him fill out this ballot.
Otherwise, we have no way of knowing who the ballot -whether the ballot really came from the person who voted.
It is there to protect the integrity of the elections process,
but it is also there to protect the voter, to make sure that
the voter knows -- everybody knows that the voter is who
they say they are, and so that somebody else is not voting
in their place.
Additionally, it is a tool for dealing with voter fraud.
(Democracy N. Carolina, No. 1:20CV457, Evidentiary Hr'g
Tr. vol. 3 (Doc. 114) at 111-12.) In this hearing, the State
continued on to note that “there needs to be some form of
verification of who the voter is,” which can “either be through
a witness requirement or ... through signature verification,”
but “it needs to be one or the other.” (Id. at 115-16.)
Losing the witness requirement, according to the State, would
mean having “no verification.” (Id. at 116.) Contravening a
legislatively implemented witness requirement and switching

to a system of “no verification,” (id.), was certainly not a
necessary conflict under § 163-27.1(a).
SBE argues that this court does not have authority to address
how this switch contradicted state law and went outside its
validly delegated emergency powers. This is a state law issue,
as the dispute is over the extent of the Executive Director's
authority as granted to her by the North Carolina Legislature.
The State claims that, since a North Carolina Superior Court
Judge has approved this exercise of authority, this court is
obligated to follow that state court judgment. (SBE Resp.
(Doc. 65) at 16.)
*30 However, when the Supreme Court of a state has not
spoken, federal courts must predict how that highest court
would rule, rather than automatically following any state
court that might have considered the question first. See Doe v.
Marymount Univ., 297 F. Supp. 3d 573, 590 (E.D. Va. 2018)
(“[F]ederal courts are not bound to follow state trial court
decisions in exercising their supplemental jurisdiction.”). The
Fourth Circuit has addressed this issue directly in diversity
jurisdiction contexts as well:
a federal court sitting in diversity is not bound by a state
trial court's decision on matters of state law. In King
v. Order of United Commercial Travelers of America,
333 U.S. 153, 68 S. Ct. 488, 92 L. Ed. 608 (1948),
the Supreme Court upheld the Fourth Circuit's refusal to
follow an opinion issued by a state trial court in a South
Carolina insurance case. The Court concluded, “a Court of
Common Pleas does not appear to have such importance
and competence within South Carolina's own judicial
system that its decisions should be taken as authoritative
expositions of that State's ‘law.’ ” Id. at 161, 68 S. Ct. 488.
Twin City Fire Ins. Co. v. Ben Arnold-Sunbelt Beverage Co.
of S.C., 433 F.3d 365, 370 (4th Cir. 2005). In other words,
this court's job is to predict how the Supreme Court of North
Carolina would rule on the disputed state law question. Id. at
369 (“If the Supreme Court of [North Carolina] has spoken
neither directly nor indirectly on the particular issue before
us, [this court is] called upon to predict how that court would
rule if presented with the issue.”)(quotation omitted); Carter
v. Fid. Life Ass'n, 339 F. Supp. 3d 551, 554 (E.D.N.C.), aff'd,
740 F. App'x 41 (4th Cir. 2018) (“Accordingly, the court
applies North Carolina law, and the court must determine
how the Supreme Court of North Carolina would rule.”).
In predicting how the North Carolina Supreme Court might
decide, this court “consider[s] lower court opinions in [North
Carolina], the teachings of treatises, and the practices of other
states.” Twin City Fire Ins. Co., 433 F.3d at 369. This court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1398 Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 27 Document 58-2

26

Ex. 2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

“follow[s] the decision of an intermediate state appellate court
unless there is persuasive data that the highest court would
decide differently.” Town of Nags Head v. Toloczko, 728 F.3d
391, 397-98 (4th Cir. 2013).
In all candor, this court cannot conceive of a more problematic
conflict with the provisions of Chapter 163 of the North
Carolina General Statutes than the procedures implemented
by the Revised 2020-19 memo and the Consent Order.
Through this abandonment of the witness requirement, some
class of voters will be permitted to submit ballots with
no verification. Though SBE suggests that its “cure” is
sufficient to protect against voter fraud, the cure provided
has few safeguards: it asks only if the voter “voted” with no
explanation of the manner in which that vote was exercised.
(Moore v. Circosta, No. 1:20CV911, State Court Consent
Judgment (Doc. 45-1) at 34.) This court believes this is in
clear violation of SBE's powers, even its emergency powers
under N.C. Gen. Stat. § 163-27.1(a). However, none of this
changes the fact that Plaintiffs in both Wise and Moore lack
standing to challenge the legitimacy of SBE's election rulesetting power under either the Elections Clause or the Electors
Clause.

This court believes the unequal treatment of voters and the
resulting Equal Protection violations as found herein should
be enjoined. Nevertheless, under Purcell and recent Supreme
Court orders relating to Purcell, this court is of the opinion
that it is required to find that injunctive relief should be
denied at this late date, even in the face of what appear to
be clear violations. For the foregoing reasons, this court finds
that in Moore v. Circosta, No. 1:20CV911, Plaintiffs’ Motion
for Preliminary Injunction should be denied. This court also
finds that in Wise v. N. Carolina State Bd. of Elections, No.
1:20CV912, the Plaintiffs’ Motion to Convert the Temporary
Restraining Order into a Preliminary Injunction should be
denied.
*31 IT IS THEREFORE ORDERED that Plaintiffs’
Motion for Preliminary Injunction in Moore v. Circosta, No.
1:20CV911, (Doc. 60), is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’ Motion to
Convert the Temporary Restraining Order into a Preliminary
Injunction in Wise v. N. Carolina State Bd. of Elections, No.
1:20CV912, (Doc. 43), is DENIED.
All Citations

III. CONCLUSION

End of Document

--- F.Supp.3d ----, 2020 WL 6063332
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1399 Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 27 Document 58-2

27

Ex. 2

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974

2020 WL 5626974
Only the Westlaw citation is currently available.
United States District Court, D. Nevada.

DONALD J. TRUMP FOR
PRESIDENT, INC., et al., Plaintiff(s),
v.
Barbara CEGAVSKE, Defendant(s).
Case No. 2:20-CV-1445 JCM (VCF)
|
Signed 09/18/2020
Synopsis
Background: Presidential election campaign and political
party brought action challenging constitutionality of Nevada
statute which expanded mail-in voting for Nevada voters
during COVID-19 pandemic. Nevada Secretary of State
moved to dismiss.

Holdings: The District Court, James C. Mahan, Senior
District Judge, held that:
presidential election campaign and political party lacked
associational standing to bring suit on behalf of its member
voters, and

ORDER
James C. Mahan, UNITED STATES DISTRICT JUDGE
*1 Presently before the court is defendant Barbara
Cegavske, Nevada Secretary of State's, motion to dismiss the
first amended complaint. (ECF No. 37). Plaintiffs Donald
J. Trump for President, Inc. (“Trump campaign”), the
Republican National Committee, and the Nevada Republican
Party responded. (ECF No. 42). Defendant replied. (ECF No.
45).
I. Background
On August 3, 2020, Nevada joined the growing ranks of states
that have expanded mail-in voting due to the COVID-19
pandemic.1 See Assembly Bill No. 4 of the 32nd Special
Session (2020) of the Nevada Legislature, Act of August
3, 2020, ch. 3, 2020 Nev. Stat. 18, §§ 1–88 (“AB 4”).
The Nevada State Legislature passed Assembly Bill 4 (“AB
4”), which codified procedures for elections impacted by
emergencies or disasters.2 Specifically, the law directs city
and county election officials to mail paper ballots to all active
registered voters in Nevada. AB 4 at § 15.
1

plaintiffs lacked direct organizational standing.
Motion granted.

2

Attorneys and Law Firms
Donald J. Campbell, J Colby Williams, Campbell & Williams,
Las Vegas, NV, Thomas McCarthy, Pro Hac Vice, Cameron
Thomas Norris, Pro Hac Vice, Tyler Green, Pro Hac
Vice, William Spencer Consovoy, Pro Hac Vice, Consovoy
McCarthy PLLC, Arlington, VA, for Plaintiff(s).
Aaron D. Ford-AG, Nearvada Attorney General, Craig A.
Newby, Gregory Louis Zunino, Nevada State Attorney
General's Office, Carson City, NV, for Defendant(s).

Prior to the COVID-19 pandemic, Nevada voters
could request an absentee ballot without providing an
excuse or justification, and certain voters in rural areas
could be grouped together in “mailing precincts” and
“automatically mailed their paper ballots.” (See ECF No.
37 at 7 (citing NRS §§ 293.3038-.340; 293.343-.355)).
“[I]f a state of emergency or declaration of disaster is
proclaimed by the Governor or by resolution of the
Legislature pursuant to NRS 414.070 for the entire State
of Nevada, the following elections are deemed to be
affected elections.” AB 4 at § 8. Governor Steve Sisolak
declared a state of emergency due to the COVID-19
pandemic on March 12, 2020. (ECF No. 29 at ¶ 103).

The next day, plaintiffs filed this instant suit.3 (ECF No. 1).
They challenge several key provisions of AB 4:
3

This suit is one of several that the Trump campaign
has filed challenging expansions of mail-in voting
during the COVID-19 pandemic. See Donald J. Trump
for President, Inc. v. Bullock, No. CV 20-6-H-DLC
(D. Mont. filed Sept. 2, 2020); Donald J. Trump for
President, Inc. v. Murphy, No. 3:20-cv-10753, 2020 WL

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1400

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 58-3

1

Ex. 3

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974
4805762 (D.N.J. filed Aug. 18, 2020); Donald J. Trump
for President, Inc. v. Boockvar, No. 2:20-cv-00966 (W.D.
Pa. filed Jun. 29, 2020). This court only takes notice of
the existence of these lawsuits, and not the disputed facts
therein. Fed. R. Evid. 201.

Section 20(2) of AB 4 establishes a presumption that a ballot
was cast in time, as long as it is received by election officials
before 5 p.m. on the third day after the election, even if it
lacks a postmark.4 AB 4 at § 20(2). Plaintiffs allege that
section 20(2) is preempted by federal laws that set the date of
the general election,5 because the provision allegedly permits
election officials to count ballots cast after election day. (ECF
No. 29 at ¶¶ 104–123). Plaintiffs theorize that, due to the
speed of the United States Postal Service, a ballot mailed in
Clark or Washoe county “in a state-provided, postage prepaid
first-class envelope on the Wednesday or Thursday after
Election Day will likely be received [by election officials]
before 5:00pm on the Friday after the election” and “almost
certainly will arrive without bearing a postmark.” (Id. at ¶ 96).
4

5

Section 22 of AB 4 requires election officials to establish
“procedures for the processing and counting of mail ballots”
for any affected election.6 AB 4 at § 22. Section 25 provides
that “if two or more mail ballots are found folded together to
present the appearance of a single ballot” and “a majority of
the inspectors are of the opinion that the mail ballots folded
together were voted by one person, the mail ballots must be
rejected.”7 AB 4 at § 25(2). Plaintiffs allege that sections
22 and 25 violate the Equal Protection Clause, because they
authorize “ ‘standardless’ procedures” across counties and
cities for processing, inspecting, and counting mail ballots
with no “specific rules designed to ensure uniform treatment”
and no “ ‘minimal procedural safeguards.’ ” (ECF No. 29 at
¶¶ 145, 159) (quoting Bush v. Gore, 531 U.S. 98, 105–106,
121 S.Ct. 525, 148 L.Ed.2d 388 (2000) (per curiam)).
6

Section 20(2) of AB 4 duplicates NRS § 293.317, a
statute that has been in effect since January 1, 2020, but
makes it applicable to affected elections. (ECF No. 37 at
8, 15).
U.S. Const. art. I, § 4, cl. 1 (Elections Clause); U.S.
Const. art. II, § 1, cl. 4 (Electors Clause); U.S. Const.
art. VI, § 2 (Supremacy Clause); 3 U.S.C. § 1 (“Time of
appointing electors”); 2 U.S.C. § 7 (“Time of election”);
2 U.S.C. § 1 (“Time for election of senators”).

*2 Sections 11 and 12 of AB 4 require election officials to
establish a minimum number of in-person voting locations for
early voting and election-day voting, respectively. AB 4 at §§
11, 12. A county with a population of “700,000 or more” must
establish at least 100 voting centers for election day. Id. at §
12. A county with a population of “100,000 or more but less
than 700,000” must establish at least 25 voting centers. Id.
And a county with a population of “less than 100,000” may
establish one or more voting center. Id. Plaintiffs allege that
sections 11 and 12 authorize the disparate treatment of rural
voters in violation of the Equal Protection Clause, because
there will be “more in-person voting places per capita for
voters in urban counties than in rural counties.” (ECF No. 29
at ¶ 100). Plaintiffs speculate that rural Nevada counties will
have substantially higher numbers of registered voters per inperson voting location than urban counties such as Washoe.
(Id. at ¶¶ 130–138).

7

Section 22 is read together with other provisions in AB
4 that establish procedures for processing and counting
mail ballots. For example, section 17 requires election
officials to secure proof of identification from certain
first-time voters before counting their mail ballots. AB 4
at § 17. Section 23 requires election officials to verify the
signature on mail ballots. Id. at § 23. Section 26 requires
election officials to verify that the voter did not vote in
person before counting the mail ballot. Id. at § 26. And
Section 22(b) forbids election officials from establishing
any procedures that conflict with sections 2 to 27 of AB
4. Id. at § 22.
Section 25 of AB 4 duplicates NRS § 293.363, a statute
that has been in effect since 1960, but makes it applicable
to affected elections. (ECF No. 37 at 9, 21).

And finally, plaintiffs allege that all of the aforementioned
provisions of AB 4, along with section 21,8 “facilitate
fraud and other illegitimate voting practices” and “dilute the
value of honest, lawful votes” in violation of the Fourteenth
Amendment. (ECF No. 29 at ¶ 169).
8

Section 21 allows for “a person authorized by the voter
may return the mail ballot on behalf of the voter by
mail or personal delivery to the county or city clerk,
as applicable, or any ballot drop box established in the
county or city, as applicable.” AB 4 at § 21.

On August 20, 2020, plaintiffs amended their complaint
without altering the parties or their claims. (ECF No. 29).
Defendant now moves to dismiss the amended complaint
pursuant to Federal Rule of Civil Procedure 12(b)(1). (ECF
No. 37).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1401

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 7 Document 58-3

2

Ex. 3

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974

II. Legal Standard
Federal courts are courts of limited jurisdiction. Owen Equip.
& Erection Co. v. Kroger, 437 U.S. 365, 374, 98 S.Ct.
2396, 57 L.Ed.2d 274 (1978). “A federal court is presumed
to lack jurisdiction in a particular case unless the contrary
affirmatively appears.” Stock West, Inc. v. Confederated
Tribes of Colville Reservation, 873 F.2d 1221, 1225 (9th Cir.
1989).
A. Federal Rule of Civil Procedure 12(b)(1)
Federal Rule of Civil Procedure 12(b)(1) allows defendants to
seek dismissal of a claim or action for a lack of subject matter
jurisdiction. Dismissal under Rule 12(b)(1) is appropriate if
the complaint, considered in its entirety, fails to allege facts on
its face sufficient to establish subject matter jurisdiction. In re
Dynamic Random Access Memory (DRAM) Antitrust Litig.,
546 F.3d 981, 984–85 (9th Cir. 2008).
*3 Plaintiffs bear the burden of proving that the case is
properly in federal court to survive a Rule 12(b)(1) motion.
McCauley v. Ford Motor Co., 264 F.3d 952, 957 (9th Cir.
2001) (citing McNutt v. General Motors Acceptance Corp.,
298 U.S. 178, 189, 56 S.Ct. 780, 80 L.Ed. 1135 (1936)). They
must plead “the existence of whatever is essential to federal
jurisdiction, and, if [plaintiffs] do[ ] not do so, the court, on
having the defect called to its attention or on discovering the
same, must dismiss the case, unless the defect be corrected
by amendment.” Smith v. McCullough, 270 U.S. 456, 459, 46
S.Ct. 338, 70 L.Ed. 682 (1926).

the injury will be redressed by a favorable decision. Lujan,
504 U.S. at 560–61, 112 S.Ct. 2130. The party invoking
federal jurisdiction bears the burden of demonstrating that
it has standing to sue. Id. at 561, 112 S.Ct. 2130. “[A]t
the pleading stage, the plaintiff must ‘clearly ... allege facts
demonstrating’ each element” of standing. Spokeo, 136 S. Ct.
at 1547 (quoting Warth v. Seldin, 422 U.S. 490, 518, 95 S.Ct.
2197, 45 L.Ed.2d 343 (1975)).
“To establish injury in fact, a plaintiff must show that he or
she suffered ‘an invasion of a legally protected interest’ that
is ‘concrete and particularized’ and ‘actual or imminent[.]’
” Spokeo, 136 S. Ct. at 1548. Moreover, a concrete injury
must actually exist and affect the plaintiff in a personal and
individual way. Id. As the Supreme Court noted in Spokeo:
Congress' role in identifying and elevating intangible
harms does not mean that a plaintiff automatically satisfies
the injury-in-fact requirement whenever a statute grants
a person a statutory right and purports to authorize that
person to sue to vindicate that right. Article III standing
requires a concrete injury even in the context of a statutory
violation. For that reason, [plaintiff] could not, for example,
allege a bare procedural violation, divorced from any
concrete harm, and satisfy the injury-in-fact requirement of
Article III.
Id. at 1549 (citing Summers v. Earth Island Institute, 555
U.S. 488, 496, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009)
(“[D]eprivation of a procedural right without some concrete
interest that is affected by the deprivation ... is insufficient to
create Article III standing.”)).

B. Article III Standing
Standing to sue is a “doctrine rooted in the traditional
understanding of a case or controversy.” Spokeo, Inc. v.
Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547, 194 L.Ed.2d
635 (2016). The doctrine “limits the category of litigants
empowered to maintain a lawsuit in federal court to seek
redress for a legal wrong.” Id. In this way, standing “serves
to prevent the judicial process from being used to usurp the
powers of the political branches.” Id. (quoting Clapper v.
Amnesty Int'l USA, 568 U.S. 398, 408, 133 S.Ct. 1138, 185
L.Ed.2d 264 (2013)); see also Lujan v. Defenders of Wildlife,
504 U.S. 555, 576–77, 112 S.Ct. 2130, 119 L.Ed.2d 351
(1992).

III. Discussion
Defendant argues that plaintiffs do not have standing to bring
their claims for relief. (ECF Nos. 37, 45). This court agrees.

To establish standing, plaintiff must plead three elements:
(1) an injury in fact; (2) a causal connection between the
injury and the alleged misconduct; and (3) a likelihood that

A. Associational Standing for Voters
*4 Plaintiffs argue that they have associational standing
to vindicate the injuries caused to their member voters by

Plaintiffs attempt to establish standing in three ways: (1)
associational standing to vindicate harms to their member
voters, (2) direct organizational standing due to their need to
divert resources, and (3) direct and associational standing to
vindicate competitive injuries to their candidates. (ECF No.
42).
This court will address each of plaintiffs' theories in turn.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1402

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 7 Document 58-3

3

Ex. 3

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974

AB 4. (ECF No. 42 at 10–13). These injuries are two-fold:
an individual “right under the Constitution to have [your]
vote fairly counted, without being distorted by fraudulently
cast votes”—vote dilution—and an “arbitrary and disparate
treatment of the members of its electorate”—violations of the
Equal Protection Clause. (ECF No. 29 at ¶¶ 33, 35).
An entity may establish associational standing to bring suit
on behalf of its members when: (1) “its members would
otherwise have standing to sue in their own right;” (2) “the
interests it seeks to protect are germane to the organization's
purpose;” and (3) “neither the claim asserted nor the relief
requested requires the participation of individual members in
the lawsuit.” Hunt v. Wash. State Apple Adver. Comm'n, 432
U.S. 333, 343, 97 S.Ct. 2434, 53 L.Ed.2d 383 (1977).
This court finds that the Trump campaign fails to satisfy
the second prong of associational standing: the interests of
the voters are not “germane to the organization's purpose.”
Id. The Trump campaign does not represent Nevada voters.
The Trump campaign represents only Donald J. Trump
and his “electoral and political goals” of reelection. (ECF
No. 29 at ¶ 11). By statutory definition, a federal election
candidate's “principal campaign committee” is simply a
reserve of funds set aside for that campaign. See 52 U.S.C.
§ 30102 (“Organization of political committees”). Although
the Trump campaign may achieve its “organization's purpose”
through Nevada voters, the individual constitutional interests
of those voters are wholly distinct. (ECF No. 29 at ¶ 11).
In contrast to the Trump campaign, the Republican National
Committee and Nevada Republican Party satisfy the second
prong; the interests of their member voters are germane to
their “organization's purpose.” See Hunt, 432 U.S. at 343, 97
S.Ct. 2434. Still, however, plaintiffs' member voters would
not “otherwise have standing to sue in their own right.” Id.
Plaintiffs' alleged injury of vote dilution is impermissibly
“generalized” and “speculative” at this juncture. Drake v.
Obama, 664 F.3d 774, 783 (9th Cir. 2011). To establish these
future injuries, plaintiffs must plead facts that establish a “
‘substantial risk’ that the harm will occur.” Susan B. Anthony
List v. Driehaus, 573 U.S. 149, 158, 134 S.Ct. 2334, 189
L.Ed.2d 246 (2014) (citing Clapper v. Amnesty Int'l USA,
568 U.S. 398, 414 n.5, 133 S.Ct. 1138, 185 L.Ed.2d 264
(2013)). Plaintiffs' allegations of equal protection violations
are also generalized and speculative. However, plaintiffs'
claim against sections 11 and 12 fail to satisfy redressability
as well—“a likelihood that the injury will be redressed by a
favorable decision.” Lujan, 504 U.S. at 560, 112 S.Ct. 2130.

To demonstrate the substantial risk of voter fraud, plaintiffs
cite studies and news articles on the subject. (ECF No. 29 at ¶¶
63–81). The news articles describe a parade of administrative
problems in Wisconsin, New Jersey, Connecticut, and New
York, states that “hurriedly” implemented mail-in voting for
elections during the COVID-19 pandemic. (Id. at ¶¶ 63–75).
Plaintiffs also point to reported irregularities in Nevada's June
2020 mail-in primary elections. (Id. at ¶¶ 57–62).
Even if accepted as true, plaintiffs' pleadings allude to
vote dilution that is impermissibly generalized. The alleged
injuries are speculative as well, see Lujan, 504 U.S. at 560,
112 S.Ct. 2130, but their key defect is generality. As a court
in this district has already recognized, plaintiffs' claims of a
substantial risk of vote dilution “amount to general grievances
that cannot support a finding of particularized injury as to
[p]laintiffs.” Paher v. Cegavske, No. 3:20-cv-00243-MMDWGC, 2020 WL 2748301, at *4 (D. Nev. May 27, 2020).
Indeed, the key provisions of AB 4 apply to all Nevada
voters. Plaintiffs never describe how their member voters
will be harmed by vote dilution where other voters will not.
As with other “[g]enerally available grievance[s] about the
government,” plaintiffs seek relief on behalf of their member
voters that “no more directly and tangibly benefits [them] than
it does the public at large.” Lujan, 504 U.S. at 573–74, 112
S.Ct. 2130; see Valley Forge Christian College v. Americans
United for Separation of Church and State, 454 U.S. 464, 485,
102 S.Ct. 752, 70 L.Ed.2d 700 (1982) (“The proposition that
all constitutional provisions are enforceable by any citizen
simply because citizens are the ultimate beneficiaries of those
provisions has no boundaries.”). Plaintiffs' allegations are
“precisely the kind of undifferentiated, generalized grievance
about the conduct of government” that fail to confer Article
III standing. Lance v. Coffman, 549 U.S. 437, 442, 127 S.Ct.
1194, 167 L.Ed.2d 29 (2007).
*5 As to plaintiffs' equal protection claims, plaintiffs first
argue that “[s]ections 11 and 12 of AB4 authorize disparate
treatment of voters in rural counties” due to the law's
differences in minimum number of in-person voting locations
across counties and lack of further guidance on how election
officials should make their determinations. (ECF No. 29 at ¶
126). However, plaintiffs fail to demonstrate how these harms
are redressed by their requested relief. “The proposition
that plaintiffs must seek relief that actually improves their
position is a well-established principle.” Townley v. Miller,
722 F.3d 1128, 1134 (9th Cir. 2013). AB 4 simply establishes
a minimum number of in-person voting locations. AB 4 at

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1403

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 7 Document 58-3

4

Ex. 3

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974

§§ 11, 12. Removing this one safeguard does not alleviate
plaintiffs' concerns. In fact, it “worsen[s] plaintiffs' injury
rather than redressing it.” Townley, 722 F.3d at 1135 (“[I]f
plaintiffs were to prevail in this lawsuit, ... voters would no
longer have the opportunity to affirmatively express their
opposition at the ballot box at all. The relief plaintiffs seek
will therefore decrease their (and other voters') expression of
political speech rather than increase it, worsening plaintiffs'
injury rather than redressing it.”). An injunction against the
enforcement of AB 4 would not address plaintiffs' issues with
the discretion that Nevada election officials have to establish
in-person voting locations. It would instead eliminate the
safeguard of a minimum number of in-person voting locations
from all counties.9
9

During the pendency of this motion, Nevada
election officials established polling places and voting
centers for the 2020 general election. 2020 General
Election & Polling Locations, Nevada Secretary
of State (2020), https://www.nvsos.gov/sos/elections/
election-day-information (presenting this information by
county). This does not impact this court's finding on
redressability.

Plaintiffs also claim that “AB 4's three-day, post-election
receipt deadline for non-postmarked ballots—coupled with
its deeming rule, the faster average mailing time in urban
districts such as Clark County, and the postal service's
practice of not postmarking prepaid mail—will likely result
in significantly more untimely ballots being counted from
urban areas.” (ECF No. 42 at 12). These injuries are too
speculative to establish standing. Plaintiffs offer a patchwork
theory of harm that does not rely on AB 4, but on the speed of
the United States Postal Service, an entity out of defendant's
control. (ECF No. 29 at ¶¶ 73–81, 90–97). A “future injury
may suffice if the threatened injury is ‘certainly impending,’
or there is a ‘substantial risk’ that the harm will occur.”
Susan B. Anthony List, 573 U.S. at 158, 134 S.Ct. 2334. Even
among the segment of voters who vote by mail, plaintiffs
offer no indication that the alleged future injury is “certainly
impending” or “substantial[ly]” likely. Id.
This court finds that plaintiffs do not have associational
standing to represent their member voters.
B. Direct Organizational Standing
Plaintiffs next allege that they have direct organizational
standing to bring their claims. (ECF No. 42 at 3–8).
Organizational standing is recognized where the alleged

misconduct of the defendant causes “a drain on [plaintiffs']
resources from both a diversion of its resources and
frustration of its mission.” Fair Hous. Council of San
Fernando Valley v. Roommate.com, LLC, 666 F.3d 1216, 1219
(9th Cir. 2012) (quotation omitted); see Havens Realty Corp.
v. Coleman, 455 U.S. 363, 379, 102 S.Ct. 1114, 71 L.Ed.2d
214 (1982) (“Such concrete and demonstrable injury to the
organization's activities—with the consequent drain on the
organization's resources—constitutes far more than simply
a setback to the organization's abstract social interests.”).
Plaintiffs allege that AB 4 forces them “to divert resources
and spend significant amounts of money educating Nevada
voters ... and encouraging them to still vote.” (ECF No. 29 at
¶ 17). Plaintiffs also briefly allege a need to divert resources
to counteract voter fraud. (ECF No. 42 at 5) (citing Am. Civil
Rights Union v. Martinez Rivera, 166 F. Supp. 3d 779, 800
(W.D. Tex. 2015)).
This court is unpersuaded by plaintiffs' theory of
organizational standing. Plaintiffs argue that AB 4 would
“confuse” their voters and “create incentive to remain
away from the polls.” (ECF No. 29 at ¶ 17). Outside of
stating “confus[ion]” and “discourage[ment]” in a conclusory
manner, plaintiffs make no indication of how AB 4 will
discourage their member voters from voting. (ECF No. 29);
see Crawford v. Marion Cty. Election Bd., 472 F.3d 949,
951 (7th Cir. 2007), aff'd, 553 U.S. 181, 128 S.Ct. 1610,
170 L.Ed.2d 574 (2008) (holding that a “new law injures”
a political party when it compels it “to devote resources
to getting to the polls those of its supporters who would
otherwise be discouraged by the new law from bothering to
vote.”). If plaintiffs did not expend any resources on educating
their voters on AB 4, their voters would proceed to vote
in-person as they overwhelmingly have in prior elections.
(ECF No. 29 at ¶¶ 43–47). AB 4 does not abolish inperson voting. An organization cannot “simply choos[e] to
spend money fixing a problem that otherwise would not
affect the organization at all. It must instead show that it
would have suffered some other injury if it had not diverted
resources to counteracting the problem.” Valle del Sol, Inc.
v. Whiting, 732 F.3d 1006, 1018 (9th Cir. 2013) (quoting La
Asociacion de Trabajadores de Lake Forest v. Lake Forest,
624 F.3d 1083, 1088 (9th Cir. 2010)). Plaintiffs make no
showing of their voters' confusion. Indeed, voters exercised
their ability to vote by mail in Nevada's 2020 primary
election. NRS §§ 293.343-.355; see Paher v. Cegavske, No.
320CV00243MMDWGC, ––– F.Supp.3d ––––, ––––, 2020
WL 2089813, at *2 (D. Nev. Apr. 30, 2020) (“[A]ll active

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1404

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 7 Document 58-3

5

Ex. 3

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974

registered voters will be mailed an absentee ballot (mail-in
ballot) for the primary election.”).
*6 In making this fact-intensive finding, this court also
notes the substantive differences between AB 4 and the laws
challenged in plaintiffs' cited authority. Compare AB 4, with
Pavek v. Simon, No. 19-CV3000 (SRN/DTS), ––– F.Supp.3d
––––, ––––, 2020 WL 3183249, at *14 (D. Minn. June 15,
2020) (finding organizational standing to challenge a state law
which “requires that in Minnesota general elections, major
political party candidates must be listed, on the ballot, in
reverse order based on the average number of votes that their
party received in the last state general election”); Democratic
Nat'l Comm. v. Reagan, 329 F. Supp. 3d 824, 841 (D. Ariz.
2018), rev'd on other grounds sub nom. Democratic Nat'l
Comm. v. Hobbs, 948 F.3d 989 (9th Cir. 2020) (en banc)
(finding organizational standing to challenge a state law that
prohibits third-party ballot collection); Georgia Coal. for
People's Agenda, Inc. v. Kemp, 347 F. Supp. 3d 1251, 1258
(N.D. Ga. 2018) (finding organizational standing to challenge
a state voter identification and registration law); Feldman
v. Arizona Sec'y of State's Office, 208 F. Supp. 3d 1074,
1080–81 (D. Ariz. 2016) (finding organizational standing to
challenge a state law that “limits who may possess another's
early ballot”); Crawford v. Marion Cty. Election Bd., 472 F.3d
949, 951 (7th Cir. 2007), aff'd, 553 U.S. 181, 128 S.Ct. 1610,
170 L.Ed.2d 574 (2008) (finding organizational standing to
challenge a state voter identification law). In these cases
with organizational standing, the challenged law has a direct
and specific impact on a voter's ability to vote. Indeed, a
diversion of resources for education would be required in
such situations. But here, the challenged law expands access
to voting through mail without restricting prior access to inperson voting. Thus, as detailed above, plaintiffs need not
divert resources to enable or encourage their voters to vote.
Plaintiffs also briefly argue that they will need to divert
resources to fight voter fraud. (ECF No. 42 at 4–5). This court
repeats its prior finding on vote dilution: it is a speculative
and “generalized grievance” in this case. See Paher, 2020
WL 2748301, at *4 (finding no standing where plaintiffs
failed to “state a particularized injury” and did no more than
“speculatively connect the specific conduct they challenge ...
and the claimed injury [of] vote dilution”); Am. Civil Rights
Union v. Martinez-Rivera, 166 F. Supp. 3d 779, 789 (W.D.
Tex. 2015) (“[T]he risk of vote dilution[ is] speculative and,
as such, [is] more akin to a generalized grievance about the
government than an injury in fact.”). Plaintiffs note in their
response to defendant's motion to dismiss that they will need

to divert resources to combat voter fraud. (ECF No. 42 at 4–5).
Plaintiffs cannot divert resources to combat an impermissibly
speculative injury. See Susan B. Anthony List, 573 U.S. at
158, 134 S.Ct. 2334. Not only have plaintiffs failed to allege a
substantial risk of voter fraud, the State of Nevada has its own
mechanisms for deterring and prosecuting voter fraud. See
NRS §§ 293.700-.840 (“unlawful acts and penalties” in the
context of an election). Here, plaintiffs do not allege that those
mechanisms would fail and that they would need to divert
resources accordingly. This court finds that plaintiffs have
again failed to show that they would “suffer[ ] some other
injury if [they] had not diverted resources to counteracting the
problem.” Valle del Sol, 732 F.3d at 1018.
C. Direct and Associational Standing for Candidates
Finally, plaintiffs argue that they have both direct and
associational standing to challenge “competitive harms” to
their electoral candidates. (ECF No. 42 at 8). “Competitive
standing” can exist when a state action will lead to the
“potential loss of an election.” Drake, 664 F.3d at 783
(quoting Owen v. Mulligan, 640 F.2d 1130, 1132–33 (9th Cir.
1981)).
Plaintiffs seek to vindicate the rights of their candidates,
because AB 4 will undermine the ability of “Republican
candidates to receive[ ] effective votes in Nevada”
by “confus[ing] voters, undermin[ing] confidence in the
electoral process, and creat[ing] incentives to remain away
from the polls.” (ECF No. 29 at ¶¶ 16–17). The pleadings
make no showing of “an unfair advantage in the election
process.” Drake, 664 F.3d at 783. Plaintiffs rely on conclusory
statements on confusion and disincentives that this court has
already found unpersuasive. See supra III.B. Plaintiffs seek
to muster “competitive standing,” yet their candidates face no
harms that are unique from their electoral opponents. Owen,
640 F.2d at 1132–33 (finding competitive standing where the
postal service gave plaintiff's opponent a preferential mailing
rate).
*7 As to AB 4's disparate treatment of rural voters, this court
repeats its prior findings: plaintiffs' requested relief fails to
satisfy redressability and the alleged harm is too speculative.
See supra III.A. Enjoining Nevada election officials from
enforcing AB 4 would not apparently improve the odds for
plaintiffs' candidates. See Drake, 664 F.3d at 783 (quoting
Owen, 640 F.2d at 1132–33 (9th Cir. 1981)). Plaintiffs make
no such allegations. Election officials would operate without
the guidance of AB 4's minimum number of in-person voting
locations. On plaintiffs' theory as to Sections 20 and 22 of AB

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1405

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 7 Document 58-3

6

Ex. 3

Donald J. Trump for President, Inc. v. Cegavske, --- F.Supp.3d ---- (2020)
2020 WL 5626974

4, plaintiffs have not established a “substantial risk” that their
alleged harm will occur. Susan B. Anthony List, 573 U.S. at
158, 134 S.Ct. 2334. Thus, neither plaintiffs nor their member
candidates “have standing to sue in their own right.” Hunt,
432 U.S. at 343, 97 S.Ct. 2434.
Ultimately, as plaintiffs concede, they hold “policy
disagreements” with proponents of AB 4. (ECF No. 42 at 2).
Although they purport to allege constitutional harms that go
beyond these policy disagreements, at this juncture, plaintiffs'
allegations remain just that. (Id.). Since initiating this matter
on August 4, 2020, (ECF No. 1), plaintiffs have not requested
an injunction or expedited review. Plaintiffs ask for a remedy
to cure the “confusion” caused by AB 4, yet they have
positioned this case for last minute adjudication before the
general election.10
10

The Supreme Court “has repeatedly emphasized that
lower federal courts should ordinarily not alter the
election rules on the eve of an election.” Republican Nat'l
Comm. v. Democratic Nat'l Comm., No. 19A1016, –––
U.S. ––––, 140 S.Ct. 1205, 1207, 206 L.Ed.2d 452 (2020)
(citing Purcell; Frank v. Walker, 574 U.S. 929, 135 S.Ct.
7, 190 L.Ed.2d 245 (2014); and Veasey v. Perry, 574 U.S.
––––, 135 S. Ct. 9, 190 L.Ed.2d 283 (2014)).

This court grants defendant's motion to dismiss due to
plaintiffs' lack of standing. (ECF No. 37). Plaintiffs' amended
complaint is hereby dismissed. (ECF No. 29). The remaining
motions before the court are denied as moot. (ECF Nos. 10,
40, 41, 43).

Accordingly,
IT IS HEREBY ORDERED, ADJUDGED, and DECREED
that defendant's motion to dismiss the amended complaint
(ECF No. 37) be, and the same hereby is, GRANTED.
IT IS FURTHER ORDERED that defendant's motion to
dismiss the original complaint (ECF No. 10) be, and the same
hereby is, DENIED as moot.
IT IS FURTHER ORDERED that intervenor-defendants
DNC Services Corporation/Democratic National Committee,
Democratic Congressional Campaign Committee, and the
Nevada State Democratic Party's motion to dismiss the
amended complaint (ECF No. 40) be, and the same hereby is,
DENIED as moot.
IT IS FURTHER ORDERED that plaintiff's motion for partial
summary judgment (ECF No. 41) be, and the same hereby is,
DENIED as moot.
IT IS FURTHER ORDERED that non-parties Walker River
Paiute Tribe and Pyramid Lake Paiute Tribe's motion to
intervene (ECF No. 43) be, and the same hereby is, DENIED
as moot.
The clerk is instructed to close the case.
All Citations
--- F.Supp.3d ----, 2020 WL 5626974

IV. Conclusion
End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1406

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 7 Document 58-3

7

Ex. 3

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

KeyCite Blue Flag – Appeal Notification
Petition for Certiorari Docketed by JIM BOGNET, ET AL. v. KATHY
BOOCKVAR, SECRETARY OF PENNSYLVANIA, ET AL., U.S.,
November 27, 2020

2020 WL 6686120
Only the Westlaw citation is currently available.
United States Court of Appeals, Third Circuit.

Jim BOGNET, Donald K. Miller,
Debra Miller, Alan Clark,
Jennifer Clark, Appellants
v.
SECRETARY COMMONWEALTH OF
PENNSYLVANIA; Adams County Board
of Elections; Allegheny County Board
of Elections; Armstrong County Board
of Elections; Beaver County Board
of Elections; Bedford County Board
of Elections; Berks County Board of
Elections; Blair County Board of Elections;
Bradford County Board of Elections;
Bucks County Board of Elections; Butler
County Board of Elections; Cambria
County Board of Elections; Cameron
County Board of Elections; Carbon County
Board of Elections; Centre County Board
of Elections; Chester County Board
of Elections; Clarion County Board of

Board of Elections; Franklin County
Board of Elections; Fulton County Board
of Elections; Greene County Board of
Elections; Huntingdon County Board
of Elections; Indiana County Board
of Elections; Jefferson County Board
of Elections; Juniata County Board of
Elections; Lackawanna County Board
of Elections; Lancaster County Board
of Elections; Lawrence County Board
of Elections; Lebanon County Board
of Elections; Lehigh County Board of
Elections; Luzerne County Board of
Elections; Lycoming County Board
of Elections; Mckean County Board
of Elections; Mercer County Board
of Elections; Mifflin County Board of
Elections; Monroe County Board of
Elections; Montgomery County Board
of Elections; Montour County Board
of Elections; Northampton County
Board of Elections; Northumberland
County Board of Elections; Perry County
Board of Elections; Philadelphia County
Board of Elections; Pike County Board
of Elections; Potter County Board of

Elections; Clearfield County Board of
Elections; Clinton County Board of

Elections; Schuylkill County Board
of Elections; Snyder County Board of
Elections; Somerset County Board of

Elections; Columbia County Board of
Elections; Crawford County Board of

Elections; Sullivan County Board of
Elections; Susquehanna County Board of

Elections; Cumberland County Board
of Elections; Dauphin County Board of
Elections; Delaware County Board of

Elections; Tioga County Board of Elections;
Union County Board of Elections; Venango
County Board of Elections; Warren County

Elections; Elk County Board of Elections;
Erie County Board of Elections; Fayette

Board of Elections; Washington County
Board of Elections; Wayne County Board

County Board of Elections; Forest County

of Elections; Westmoreland County Board

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1407 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 19 Document 58-4

1

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

of Elections; Wyoming County Board of
Elections; York County Board of Elections
Democratic National
Committee, Intervenor
No. 20-3214
|
Submitted Pursuant to Third Circuit
L.A.R. 34.1(a) November 9, 2020
|
(Filed: November 13, 2020)
Synopsis
Background: Voters and congressional candidate brought
action against Secretary of Commonwealth of Pennsylvania
and county boards of elections, seeking to enjoin the counting
of mail-in ballots received during the three-day extension
of the ballot-receipt deadline ordered by the Pennsylvania
Supreme Court, and seeking a declaration that the extension
period and presumption of timeliness was unconstitutional.
The United States District Court for the Western District
of Pennsylvania, Kim R. Gibson, Senior District Judge,
2020 WL 6323121, denied voters' and candidate's motion
for a temporary restraining order (TRO) and preliminary
injunction. Voters and candidate appealed.

Holdings: The Court of Appeals, Smith, Chief Judge, held
that:
the District Court's order was immediately appealable;
voters and candidate lacked standing to bring action alleging
violation of Constitution's Elections Clause and Electors
Clause;
voters lacked concrete injury for their alleged harm of vote
dilution, and thus voters did not have standing for such claim;
voters lacked particularized injury for their alleged harm of
vote dilution, and thus voters did not have standing for such
claim;
voters failed to allege legally cognizable “preferred class,” for
purposes of standing to claim equal protection violation;

alleged harm from presumption of timeliness was
hypothetical or conjectural, and thus voters did not have
standing to challenge presumption; and
voters and candidate were not entitled to receive injunction
so close to election.
Affirmed.
On Appeal from the United States District Court for the
Western District of Pennsylvania, District Court No. 3-20cv-00215, District Judge: Honorable Kim. R. Gibson
Attorneys and Law Firms
Brian W. Barnes, Peter A. Patterson, David H. Thompson,
Cooper & Kirk, 1523 New Hampshire Avenue, N.W.,
Washington, D.C. 20036, Counsel for Appellants
Mark A. Aronchick, Michele D. Hangley, Robert A. Wiygul,
Hangley Aronchick Segal Pudlin & Schiller, One Logan
Square, 18th & Cherry Streets, 27th Floor, Philadelphia, PA
19103, J. Bart DeLone, Sean A. Kirkpatrick, Keli M. Neary,
Office of Attorney General of Pennsylvania, Strawberry
Square, Harrisburg, PA 17120, Dimitrios Mavroudis, Jessica
Rickabaugh, Joe H. Tucker, Jr., Tucker Law Group, Ten Penn
Center, 1801 Market Street, Suite 2500, Philadelphia, PA
19103, Counsel Secretary Commonwealth of Pennsylvania
Elizabeth A. Dupuis, Molly E. Meachem, Babst Calland, 330
Innovation Boulevard, Suite 302, State College, PA 16803,
Counsel for Armstrong, Bedford, Blair, Centre Columbia,
Dauphin, Fayette, Huntingdon, Indiana, Lackawanna,
Lawrence, Northumberland, Venango, and York County
Boards of Elections
Christine D. Steere, Deasey Mahoney & Valentini, 103
Chesley Drive, Lafayette Building, Suite 101, Media, PA
19063, Counsel for Berks County Board of Elections
Edward D. Rogers, Elizabeth V. Wingfield, Ballard Spahr,
1735 Market Street, 51st Floor, Philadelphia, PA 19103,
Counsel for Delaware County Board of Elections
Stephen B. Edwards, Frank J. Lavery, Jr., Andrew W.
Norfleet, Lavery Law, 225 Market Street, Suite 304, P.O. Box
1245, Harrisburg, PA 17108, Counsel for Franklin and Perry
County Boards of Elections

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1408 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 19 Document 58-4

2

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Thomas R. Shaffer, Glassmire & Shaffer Law Offices, 5 East
Third Street, P.O. Box 509, Coudersport, PA 16915, Counsel
for Potter County Board of Elections
Marc E. Elias, Uzoma Nkwonta, Courtney A. Elgart,
Perkins Coie, 700 13th Street, N.W. Suite 800, Washington,
D.C. 20005, Counsel for Intervenor Democratic National
Committee
Before: SMITH, Chief Judge, SHWARTZ and SCIRICA,
Circuit Judges

OPINION OF THE COURT
SMITH, Chief Judge.
*1 A share in the sovereignty of the state, which is
exercised by the citizens at large, in voting at elections is
one of the most important rights of the subject, and in a
republic ought to stand foremost in the estimation of the
law.—Alexander Hamilton1
1

Second Letter from Phocion (April 1784), reprinted in 3
The Papers of Alexander Hamilton, 1782–1786, 530–58
(Harold C. Syrett ed., 1962).

The year 2020 has brought the country unprecedented
challenges. The COVID-19 pandemic, which began early
this year and continues today, has caused immense loss and
vast disruption. As this is a presidential election year, the
pandemic has also presented unique challenges regarding
where and how citizens shall vote, as well as when and how
their ballots shall be tabulated. The appeal on which we now
rule stems from the disruption COVID-19 has wrought on
the national elections. We reach our decision, detailed below,
having carefully considered the full breadth of statutory
law and constitutional authority applicable to this unique
dispute over Pennsylvania election law. And we do so with
commitment to a proposition indisputable in our democratic
process: that the lawfully cast vote of every citizen must
count.

I. Background & Procedural History
A. The Elections and Presidential Electors Clause
The U.S. Constitution delegates to state “Legislature[s]”
the authority to regulate the “Times, Places and Manner of
holding Elections for Senators and Representatives,” subject
to Congress's ability to “make or alter such Regulations.”

U.S. Const. art. I, § 4, cl. 1. This provision is known as the
“Elections Clause.” The Elections Clause effectively gives
state governments the “default” authority to regulate the
mechanics of federal elections, Foster v. Love, 522 U.S. 67,
69, 118 S.Ct. 464, 139 L.Ed.2d 369 (1997), with Congress
retaining “exclusive control” to “make or alter” any state's
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S.Ct.
1198, 90 L.Ed. 1432 (1946). Congress has not often wielded
this power but, “[w]hen exercised, the action of Congress, so
far as it extends and conflicts with the regulations of the State,
necessarily supersedes them.” Ex Parte Siebold, 100 U.S.
371, 384, 399, 25 L.Ed. 717 (1879) (“[T]he Constitution and
constitutional laws of the [United States] are ... the supreme
law of the land; and, when they conflict with the laws of the
States, they are of paramount authority and obligation.”). By
statute, Congress has set “[t]he Tuesday next after the 1st
Monday in November, in every even numbered year,” as the
day for the election. 2 U.S.C. § 7.
Much like the Elections Clause, the “Electors Clause” of the
U.S. Constitution provides that “[e]ach State shall appoint,
in such Manner as the Legislature thereof may direct, a
Number of [Presidential] Electors.” U.S. Const. art. II, §
1, cl. 2. Congress can “determine the Time of chusing the
Electors, and the Day on which they shall give their Votes;
which Day shall be the same throughout the United States.”
U.S. Const. art. II, § 1, cl. 4. Congress has set the time
for appointing electors as “the Tuesday next after the first
Monday in November, in every fourth year succeeding every
election of a President and Vice President.” 3 U.S.C. § 1.
*2 This year, both federal statutes dictate that the day for
the election was to fall on Tuesday, November 3 (“Election
Day”).
B. Pennsylvania's Election Code
In keeping with the Constitution's otherwise broad delegation
of authority to states to regulate the times, places, and manner
of holding federal elections, the Pennsylvania General
Assembly has enacted a comprehensive elections code. In
2019, the General Assembly passed Act 77, which (among
other things) established “no-excuse” absentee voting in
Pennsylvania2: all eligible voters in Pennsylvania may vote
by mail without the need to show their absence from their
voting district on the day of the election. 25 Pa. Stat. and Cons.
Stat. §§ 3150.11–3150.17. Under Act 77, “[a]pplications for
mail-in ballots shall be processed if received not later than
five o'clock P.M. of the first Tuesday prior to the day of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1409 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 19 Document 58-4

3

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

any primary or election.” Id. § 3150.12a(a). After Act 77, “a
completed absentee [or mail-in] ballot must be received in
the office of the county board of elections no later than eight
o'clock P.M. on the day of the primary or election” for that
vote to count. Id. §§ 3146.6(c), 3150.16(c).
2

Throughout this opinion, we refer to absentee voting and
mail-in voting interchangeably.

C. The Pennsylvania Supreme Court Decision
Soon after Act 77's passage, Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and
several Republican congressional candidates and voters
brought suit against Kathy Boockvar, Secretary of the
Commonwealth of Pennsylvania, and all of Pennsylvania's
county boards of elections. That suit, filed in the Western
District of Pennsylvania, alleged that Act 77's “no-excuse”
mail-in voting regime violated both the federal and
Pennsylvania constitutions. Donald J. Trump for Pres., Inc. v.
Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––, 2020
WL 4920952, at *1 (W.D. Pa. Aug. 23, 2020). Meanwhile,
the Pennsylvania Democratic Party and several Democratic
elected officials and congressional candidates filed suit in
Pennsylvania's Commonwealth Court, seeking declaratory
and injunctive relief related to statutory-interpretation issues
involving Act 77 and the Pennsylvania Election Code. See
Pa. Democratic Party v. Boockvar, ––– Pa. ––––, 238 A.3d
345, 352 (2020). Secretary Boockvar asked the Pennsylvania
Supreme Court to exercise extraordinary jurisdiction to allow
it to immediately consider the case, and her petition was
granted without objection. Id. at 354–55.
Pending resolution of the Pennsylvania Supreme Court case,
Secretary Boockvar requested that the Western District of
Pennsylvania stay the federal case. Trump for Pres. v.
Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at *1.
The District Court obliged and concluded that it would abstain
under Railroad Commission of Texas v. Pullman Co., 312 U.S.
496, 61 S.Ct. 643, 85 L.Ed. 971 (1941). See Trump for Pres.
v. Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at
*21. The RNC then filed a motion for limited preliminary
injunctive relief asking that all mailed ballots be segregated,
but the District Court denied the motion, finding that the
plaintiffs’ harm had “not yet materialized in any actualized or
imminent way.” Donald J. Trump for Pres., Inc. v. Boockvar,
No. 2:20-cv-966, 2020 WL 5407748, at *1 (W.D. Pa. Sept.
8, 2020).

*3 With the federal case stayed, the state court matter
proceeded. The Pennsylvania Democratic Party argued that
a combination of the COVID-19 pandemic and U.S. Postal
Service (“USPS”) mail-delivery delays made it difficult for
absentee voters to timely return their ballots in the June 2020
Pennsylvania primary election. Pa. Democratic Party, 238
A.3d at 362. The Pennsylvania Democratic Party claimed
that this voter disenfranchisement violated the Pennsylvania
Constitution's Free and Equal Elections Clause, art I., § 5,3
and sought, among other things, a weeklong extension of the
deadline for receipt of ballots cast by Election Day in the
upcoming general election—the same deadline for the receipt
of ballots cast by servicemembers residing overseas. Id. at
353–54. Secretary Boockvar originally opposed the extension
deadline; she changed her position after receiving a letter
from USPS General Counsel which stated that Pennsylvania's
ballot deadlines were “incongruous with the Postal Service's
delivery standards,” and that to ensure that a ballot in
Pennsylvania would be received by 8:00 P.M. on Election
Day, the voter would need to mail it a full week in advance,
by October 27, which was also the deadline to apply for a
mail-in ballot. Id. at 365–66; 25 Pa. Stat. and Cons. Stat. §
3150.12a(a). Secretary Boockvar accordingly recommended
a three-day extension to the received-by deadline. Pa.
Democratic Party, 238 A.3d at 364–65.
3

The Free and Equal Elections Clause of the Pennsylvania
Constitution provides: “Elections shall be free and equal;
and no power, civil or military, shall at any time interfere
to prevent the free exercise of the right of suffrage.” Pa.
Const. art. 1, § 5.

In a September 17, 2020 decision, the Pennsylvania Supreme
Court concluded that USPS's existing delivery standards
could not meet the timeline built into the Election Code and
that circumstances beyond voters’ control should not lead to
their disenfranchisement. Pa. Democratic Party, 238 A.3d
at 371. The Court accordingly held that the Pennsylvania
Constitution's Free and Equal Elections Clause required a
three-day extension of the ballot-receipt deadline for the
November 3 general election. Id. at 371, 386–87. All ballots
postmarked by 8:00 P.M. on Election Day and received
by 5:00 P.M. on the Friday after Election Day, November
6, would be considered timely and counted (“Deadline
Extension”). Id. at 386–87. Ballots postmarked or signed
after Election Day, November 3, would be rejected. Id. If the
postmark on a ballot received before the November 6 deadline
was missing or illegible, the ballot would be presumed to be
timely unless “a preponderance of the evidence demonstrates
that it was mailed after Election Day” (“Presumption of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1410 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 19 Document 58-4

4

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Timeliness”). Id. Shortly after the ruling, Pennsylvania voters
were notified of the Deadline Extension and Presumption of
Timeliness.
D. Appeal to the U.S. Supreme Court, and This
Litigation
The Republican Party of Pennsylvania and several
intervenors, including the President pro tempore of the
Pennsylvania Senate, sought to challenge in the Supreme
Court of the United States the constitutionality of the
Pennsylvania Supreme Court's ruling. Because the November
election date was fast approaching, they filed an emergency
application for a stay of the Pennsylvania Supreme Court's
order pending review on the merits. The U.S. Supreme
Court denied the emergency stay request in a 4-4 decision.
Republican Party of Pa. v. Boockvar, No. 20A54, 592
U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL
6128193 (Oct. 19, 2020); Scarnati v. Boockvar, No. 20A53,
592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020
WL 6128194 (Oct. 19, 2020). After denial of the stay, the
petitioners moved for expedited consideration of their petition
for certiorari. In denying that motion, Justice Alito noted that,
per the Pennsylvania Attorney General, all county boards
of elections would segregate ballots received during the
Deadline Extension period from those received by 8:00 P.M.
on Election Day. Republican Party of Pa. v. Boockvar, No.
20-542, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d
––––, 2020 WL 6304626, at *2 (Oct. 28, 2020) (Alito, J.,
statement). Justice Alito later issued an order requiring that all
county boards of elections segregate such ballots and count
them separately. Republican Party of Pa. v. Boockvar, No.
20A84, ––– U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6536912 (Mem.) (U.S. Nov. 6, 2020) (Alito, J.).
*4 In the meantime, on October 22, 2020, three days after
the U.S. Supreme Court declined to stay the Pennsylvania
Supreme Court's order, Plaintiffs herein filed this suit in
the Western District of Pennsylvania. Plaintiffs are four
registered voters from Somerset County, Pennsylvania, who
planned to vote in person on Election Day (“Voter Plaintiffs”)
and Pennsylvania congressional candidate Jim Bognet.
Defendants are Secretary Boockvar and each Pennsylvania
county's board of elections.
Bognet, the congressional candidate, claimed that the
Deadline Extension and Presumption of Timeliness “allow[ ]
County Boards of Elections to accept votes ... that would
otherwise be unlawful” and “undermine[ ] his right to run in
an election where Congress has paramount authority to set

the ‘times, places, and manner’ ” of Election Day. Bognet
v. Boockvar, No. 3:20-cv-215, 2020 WL 6323121, at *2
(W.D. Pa. Oct. 28, 2020). The Voter Plaintiffs alleged that by
voting in person, they had to comply with the single, uniform
federal Election Day deadline, whereas mail-in voters could
submit votes any time before 5:00 P.M. on November 6.
Id. Thus, they alleged, the Pennsylvania Supreme Court
treated them in an arbitrary and disparate way by elevating
mail-in voters to a “preferred class of voters” in violation
of the U.S. Constitution's Equal Protection Clause and the
single, uniform, federal Election Day set by Congress. Id. The
Voter Plaintiffs also asserted that counting ballots received
after Election Day during the Deadline Extension period
would unlawfully dilute their votes in violation of the Equal
Protection Clause. Id.
All Plaintiffs sought to enjoin Defendants from counting
ballots received during the Deadline Extension period. Id.
They also sought a declaration that the Deadline Extension
and Presumption of Timeliness are unconstitutional under
the Elections Clause and the Electors Clause as well as the
Equal Protection Clause. Id. Because Plaintiffs filed their suit
less than two weeks before Election Day, they moved for a
temporary restraining order (“TRO”), expedited hearing, and
preliminary injunction. Id.
The District Court commendably accommodated Plaintiffs’
request for an expedited hearing, then expeditiously issued
a thoughtful memorandum order on October 28, denying
the motion for a TRO and preliminary injunction. Id. at *7.
The District Court held that Bognet lacked standing because
his claims were too speculative and not redressable. Id. at
*3. Similarly, the District Court concluded that the Voter
Plaintiffs lacked standing to bring their Equal Protection
voter dilution claim because they alleged only a generalized
grievance. Id. at *5.
At the same time, the District Court held that the Voter
Plaintiffs had standing to pursue their Equal Protection
arbitrary-and-disparate-treatment claim. But it found that the
Deadline Extension did not engender arbitrary and disparate
treatment because that provision did not extend the period
for mail-in voters to actually cast their ballots; rather, the
extension only directed that the timely cast ballots of mail-in
voters be counted. Id. As to the Presumption of Timeliness,
the District Court held that the Voter Plaintiffs were likely
to succeed on the merits of their arbitrary-and-disparatetreatment challenge. Id. at *6. Still, the District Court declined
to grant a TRO because the U.S. Supreme Court “has

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1411 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 19 Document 58-4

5

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

repeatedly emphasized that ... federal courts should ordinarily
not alter the election rules on the eve of an election.” Id. at
*7 (citing Purcell v. Gonzalez, 549 U.S. 1, 127 S.Ct. 5, 166
L.Ed.2d 1 (2006) (per curiam)). The District Court concluded
that with “less than two weeks before the election. ...
[g]ranting the relief Plaintiffs seek would result in significant
voter confusion; precisely the kind of confusion that Purcell
seeks to avoid.” Id.
*5 Plaintiffs appealed the denial of their motion for a TRO
and preliminary injunction to this Court on October 29, less
than a week before Election Day. Plaintiffs requested an
expedited briefing schedule: specifically, their opening brief
would be due on October 30 and the response briefs on
November 2. Notably, Plaintiffs sought to file a reply brief
on November 3—Election Day. Appellants’ Emergency Mot.
for Expedited Briefing, Dkt. No. 17. Defendants opposed
the expedited briefing schedule, arguing that Plaintiffs’ own
delay had caused the case to reach this Court mere days
before the election. Sec'y Boockvar's Opp. to Appellants’
Emergency Mot. for Expedited Briefing, Dkt. No. 33.
Defendants also contended that Plaintiffs sought to punish
voters by invalidating the very rules mail-in voters had relied
on when they cast their ballots. Defendants asked us to deny
the motion for expedited briefing and offered to supply us
with the actual numbers of mail-in ballots received during
the Deadline Extension period together with an approximate
count of how many of those mail-in ballots lacked legible
postmarks. Id.

The District Court exercised jurisdiction under 28 U.S.C. §
1331. We exercise jurisdiction under § 1292(a)(1).
Ordinarily, an order denying a TRO is not immediately
appealable. Hope v. Warden York Cnty. Prison, 956 F.3d 156,
159 (3d Cir. 2020). Here, although Bognet and the Voter
Plaintiffs styled their motion as an Emergency Motion for
a TRO and Preliminary Injunction, see Bognet v. Boockvar,
No. 3:20-cv-00215, Dkt. No. 5 (W.D. Pa. Oct. 22, 2020), the
District Court's order plainly went beyond simply ruling on
the TRO request.
Plaintiffs filed their motion for a TRO and a preliminary
injunction on October 22, along with a supporting brief.
Defendants then filed briefs opposing the motion, with
Plaintiffs filing a reply in support of their motion. The District
Court heard argument from the parties, remotely, during a
90-minute hearing. The next day, the District Court ruled on
the merits of the request for injunctive relief. Bognet, 2020
WL 6323121, at *7. The District Court's Memorandum Order
denied both Bognet and the Voter Plaintiffs the affirmative
relief they sought to obtain prior to Election Day, confirming
that the Commonwealth was to count mailed ballots received
after the close of the polls on Election Day but before 5:00
P.M. on November 6.

Even had we granted Plaintiffs’ motion for expedited briefing,
the schedule they proposed would have effectively foreclosed
us from ruling on this appeal before Election Day. So
we denied Plaintiffs’ motion and instead ordered that their
opening brief be filed by November 6. Order, No. 20-3214,
Oct. 30, 2020, Dkt. No. 37. We directed Defendants to file
response briefs by November 9, forgoing receipt of a reply

In determining whether Bognet and the Voter Plaintiffs had
standing to sue, we resolve a legal issue that does not require
resolution of any factual dispute. Our review is de novo.
Blunt v. Lower Merion Sch. Dist., 767 F.3d 247, 266 (3d
Cir. 2014). “When reviewing a district court's denial of a
preliminary injunction, we review the court's findings of fact
for clear error, its conclusions of law de novo, and the ultimate
decision ... for an abuse of discretion.” Reilly v. City of
Harrisburg, 858 F.3d 173, 176 (3d Cir. 2017) (quoting Bimbo
Bakeries USA, Inc. v. Botticella, 613 F.3d 102, 109 (3d Cir.
2010)) (cleaned up).

brief.4 Id. With the matter now fully briefed, we consider
Plaintiffs’ appeal of the District Court's denial of a TRO and
preliminary injunction.

III. Analysis

4

Because we have received comprehensive briefing, and
given the weighty public interest in a prompt ruling
on the matter before us, we have elected to forgo oral
argument.

II. Standard of Review

A. Standing
Derived from separation-of-powers principles, the law of
standing “serves to prevent the judicial process from being
used to usurp the powers of the political branches.” Clapper
v. Amnesty Int'l USA, 568 U.S. 398, 408, 133 S.Ct. 1138, 185
L.Ed.2d 264 (2013) (citations omitted). Article III of the U.S.
Constitution vests “[t]he judicial Power of the United States”
in both the Supreme Court and “such inferior Courts as the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1412 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 19 Document 58-4

6

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Congress may from time to time ordain and establish.” U.S.
Const. art. III, § 1. But this “judicial Power” extends only to
“Cases” and “Controversies.” Id. art. III, § 2; see also Spokeo,
Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547, 194
L.Ed.2d 635 (2016). To ensure that judges avoid rendering
impermissible advisory opinions, parties seeking to invoke
federal judicial power must first establish their standing to do
so. Spokeo, 136 S. Ct. at 1547.
*6 Article III standing doctrine speaks in jargon, but the
gist of its meaning is plain enough. To bring suit, you—and
you personally—must be injured, and you must be injured
in a way that concretely impacts your own protected legal
interests. If you are complaining about something that does
not harm you—and does not harm you in a way that is
concrete—then you lack standing. And if the injury that you
claim is an injury that does no specific harm to you, or if it
depends on a harm that may never happen, then you lack an
injury for which you may seek relief from a federal court.
As we will explain below, Plaintiffs here have not suffered a
concrete, particularized, and non-speculative injury necessary
under the U.S. Constitution for them to bring this federal
lawsuit.
The familiar elements of Article III standing require a plaintiff
to have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial decision.”
Id. (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–
61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992); Friends of the
Earth, Inc. v. Laidlaw Env't Servs. (TOC), Inc., 528 U.S. 167,
180–81, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000)). To plead
an injury in fact, the party invoking federal jurisdiction must
establish three sub-elements: first, the “invasion of a legally
protected interest”; second, that the injury is both “concrete
and particularized”; and third, that the injury is “actual or
imminent, not conjectural or hypothetical.” Spokeo, 136 S.
Ct. at 1548 (quoting Lujan, 504 U.S. at 560, 112 S.Ct. 2130);
see also Mielo v. Steak ’n Shake Operations, 897 F.3d 467,
479 n.11 (3d Cir. 2018). The second sub-element requires that
the injury “affect the plaintiff in a personal and individual
way.” Lujan, 504 U.S. at 560 n.1, 112 S.Ct. 2130. As for the
third, when a plaintiff alleges future injury, such injury must
be “certainly impending.” Clapper, 568 U.S. at 409, 133 S.Ct.
1138 (quoting Lujan, 504 U.S. at 565 n.2, 112 S.Ct. 2130).
Allegations of “possible” future injury simply aren't enough.
Id. (quoting Whitmore v. Arkansas, 495 U.S. 149, 158, 110
S.Ct. 1717, 109 L.Ed.2d 135 (1990)). All elements of standing

must exist at the time the complaint is filed. See Lujan, 504
U.S. at 569 n.4, 112 S.Ct. 2130.
With these guideposts in mind, we turn to whether Plaintiffs
have pleaded an Article III injury. They bring several
claims under 42 U.S.C. § 1983, asserting deprivation of
their constitutional rights. They allege that Defendants’
implementation of the Pennsylvania Supreme Court's
Deadline Extension and Presumption of Timeliness violates
the Elections Clause of Article I, the Electors Clause of
Article II, and the Equal Protection Clause of the Fourteenth
Amendment. Because Plaintiffs lack standing to assert these
claims, we will affirm the District Court's denial of injunctive
relief.

1. Plaintiffs lack standing under the Elections Clause and
Electors Clause.
Federal courts are not venues for plaintiffs to assert a bare
right “to have the Government act in accordance with law.”
Allen v. Wright, 468 U.S. 737, 754, 104 S.Ct. 3315, 82 L.Ed.2d
556 (1984), abrogated on other grounds by Lexmark Int'l, Inc.
v. Static Control Components, Inc., 572 U.S. 118, 126–27,
134 S.Ct. 1377, 188 L.Ed.2d 392 (2014). When the alleged
injury is undifferentiated and common to all members of the
public, courts routinely dismiss such cases as “generalized
grievances” that cannot support standing. United States v.
Richardson, 418 U.S. 166, 173–75, 94 S.Ct. 2940, 41 L.Ed.2d
678 (1974). Such is the case here insofar as Plaintiffs, and
specifically candidate Bognet, theorize their harm as the right
to have government administered in compliance with the
Elections Clause and Electors Clause.
To begin with, private plaintiffs lack standing to sue for
alleged injuries attributable to a state government's violations
of the Elections Clause. For example, in Lance v. Coffman,
549 U.S. 437, 127 S.Ct. 1194, 167 L.Ed.2d 29 (2007) (per
curiam), four private citizens challenged in federal district
court a Colorado Supreme Court decision invalidating a
redistricting plan passed by the state legislature and requiring
use of a redistricting plan created by Colorado state courts.
Id. at 438, 127 S.Ct. 1194. The plaintiffs alleged that the
Colorado Supreme Court's interpretation of the Colorado
Constitution violated the Elections Clause “by depriving the
state legislature of its responsibility to draw congressional
districts.” Id. at 441, 127 S.Ct. 1194. The U.S. Supreme Court
held that the plaintiffs lacked Article III standing because
they claimed harm only to their interest, and that of every

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1413 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 19 Document 58-4

7

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

citizen, in proper application of the Elections Clause. Id.
at 442, 127 S.Ct. 1194 (“The only injury plaintiffs allege
is that the law—specifically the Elections Clause—has not
been followed.”). Their relief would have no more directly
benefitted them than the public at large. Id. The same is
true here. If anything, Plaintiffs’ “interest in the State's
ability to ‘enforce its duly enacted laws’ ” is even less
compelling because Pennsylvania's “election officials support
the challenged decree.” Republican Nat'l Comm. v. Common
Cause R.I., No. 20A28, 591 U.S. ––––, ––– S.Ct. ––––, ––––,
––– L.Ed.2d ––––, 2020 WL 4680151 (Mem.), at *1 (Aug.
13, 2020) (quoting Abbott v. Perez, ––– U.S. ––––, 138 S. Ct.
2305, 2324 n.17, 201 L.Ed.2d 714 (2018)).
*7 Because the Elections Clause and the Electors Clause
have “considerable similarity,” Ariz. State Legislature v.
Ariz. Indep. Redistricting Comm'n, 576 U.S. 787, 839,
135 S.Ct. 2652, 192 L.Ed.2d 704 (2015) (Roberts, C.J.,
dissenting) (discussing how Electors Clause similarly vests
power to determine manner of appointing electors in “the
Legislature” of each State), the same logic applies to
Plaintiffs’ alleged injury stemming from the claimed violation
of the Electors Clause. See also Foster, 522 U.S. at 69,
118 S.Ct. 464 (characterizing Electors Clause as Elections
Clause's “counterpart for the Executive Branch”); U.S. Term
Limits, Inc. v. Thornton, 514 U.S. 779, 804–05, 115 S.Ct.
1842, 131 L.Ed.2d 881 (1995) (noting that state's “duty”
under Elections Clause “parallels the duty” described by
Electors Clause).
Even a party that meets Article III standing requirements must
ordinarily rest its claim for relief on violation of its own rights,
not those of a third party. Pitt News v. Fisher, 215 F.3d 354,
361–62 (3d Cir. 2000). Plaintiffs assert that the Pennsylvania
Supreme Court's Deadline Extension and Presumption of
Timeliness usurped the General Assembly's prerogative under
the Elections Clause to prescribe “[t]he Times, Places and
Manner of holding Elections.” U.S. Const. art. I, § 4, cl. 1. The
Elections Clause grants that right to “the Legislature” of “each
State.” Id. Plaintiffs’ Elections Clause claims thus “belong,
if they belong to anyone, only to the Pennsylvania General
Assembly.” Corman v. Torres, 287 F. Supp. 3d 558, 573
(M.D. Pa. 2018) (three-judge panel) (per curiam). Plaintiffs
here are four individual voters and a candidate for federal
office; they in no way constitute the General Assembly, nor
can they be said to comprise any part of the law-making
processes of Pennsylvania. Ariz. State Legislature, 576 U.S.
at 824, 135 S.Ct. 2652.5 Because Plaintiffs are not the General
Assembly, nor do they bear any conceivable relationship to

state lawmaking processes, they lack standing to sue over the
alleged usurpation of the General Assembly's rights under the
Elections and Electors Clauses. No member of the General
Assembly is a party to this lawsuit.
5

Bognet seeks to represent Pennsylvania in Congress,
but even if he somehow had a relationship to state
lawmaking processes, he would lack personal standing
to sue for redress of the alleged “institutional injury
(the diminution of legislative power), which necessarily
damage[d] all Members of [the legislature] ... equally.”
Raines v. Byrd, 521 U.S. 811, 821, 117 S.Ct. 2312,
138 L.Ed.2d 849 (1997) (plaintiffs were six out of 535
members of Congress); see also Corman, 287 F. Supp.
3d at 568–69 (concluding that “two of 253 members
of the Pennsylvania General Assembly” lacked standing
to sue under Elections Clause for alleged “deprivation
of ‘their legislative authority to apportion congressional
districts’ ”); accord Va. House of Delegates v. BethuneHill, ––– U.S. ––––, 139 S. Ct. 1945, 1953, 204 L.Ed.2d
305 (2019).

That said, prudential standing can suspend Article III's
general prohibition on a litigant's raising another person's
legal rights. Yet Plaintiffs don't fit the bill. A plaintiff may
assert the rights of another if he or she “has a ‘close’
relationship with the person who possesses the right” and
“there is a ‘hindrance’ to the possessor's ability to protect
his own interests.” Kowalski v. Tesmer, 543 U.S. 125, 130,
125 S.Ct. 564, 160 L.Ed.2d 519 (2004) (citation omitted).
Plaintiffs cannot invoke this exception to the rule against
raising the rights of third parties because they enjoy no close
relationship with the General Assembly, nor have they alleged
any hindrance to the General Assembly's ability to protect its
own interests. See, e.g., Corman, 287 F. Supp. 3d at 573. Nor
does Plaintiffs’ other theory of prudential standing, drawn
from Bond v. United States, 564 U.S. 211, 131 S.Ct. 2355, 180
L.Ed.2d 269 (2011), advance the ball.
*8 In Bond, the Supreme Court held that a litigant has
prudential standing to challenge a federal law that allegedly
impinges on the state's police powers, “in contravention of
constitutional principles of federalism” enshrined in the Tenth
Amendment. Id. at 223–24, 131 S.Ct. 2355. The defendant
in Bond challenged her conviction under 18 U.S.C. § 229,
which Congress enacted to comply with a chemical weapons
treaty that the United States had entered. Id. at 214–15,
131 S.Ct. 2355. Convicted under the statute she sought to
challenge, Bond satisfied Article III's standing requirements.
Id. at 217, 131 S.Ct. 2355 (characterizing Bond's sentence
and incarceration as concrete, and redressable by invalidation

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1414 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 19 Document 58-4

8

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

of her conviction); id. at 224–25, 131 S.Ct. 2355 (noting
that Bond was subject to “[a] law,” “prosecution,” and
“punishment” she might not have faced “if the matter were
left for the Commonwealth of Pennsylvania to decide”). She
argued that her conduct was “local in nature” such that §
229 usurped the Commonwealth's reserved police powers.
Id. Rejecting the Government's contention that Bond was
barred as a third party from asserting the rights of the
Commonwealth, id. at 225, 131 S.Ct. 2355, the Court held
that “[t]he structural principles secured by the separation of
powers protect the individual as well” as the State. Id. at 222,
131 S.Ct. 2355 (“Federalism also protects the liberty of all
persons within a State by ensuring that laws enacted in excess
of delegated governmental power cannot direct or control
their actions. ... When government acts in excess of its lawful
powers, that [personal] liberty is at stake.”).
But the nub of Plaintiffs’ argument here is that the
Pennsylvania Supreme Court intruded on the authority
delegated to the Pennsylvania General Assembly under
Articles I and II of the U.S. Constitution to regulate federal
elections. They do not allege any violation of the Tenth
Amendment, which provides that “[t]he powers not delegated
to the United States by the Constitution, nor prohibited by
it to the States, are reserved to the States respectively, or to
the people.” U.S. Const. amend. X. Nor could they. After
all, states have no inherent or reserved power over federal
elections. U.S. Term Limits, 514 U.S. at 804–05, 115 S.Ct.
1842. When “deciding issues raised under the Elections
Clause,” courts “need not be concerned with preserving a
‘delicate balance’ between competing sovereigns.” Gonzalez
v. Arizona, 677 F.3d 383, 392 (9th Cir. 2012). Either federal
and state election law “operate harmoniously in a single
procedural scheme,” or they don't—and the federal law
preempts (“alter[s]”) state election law under the Elections
Clause. Id. at 394. An assessment that the Pennsylvania
Supreme Court lacked the legislative authority under the
state's constitution necessary to comply with the Elections
Clause (Appellants’ Br. 24–27) does not implicate Bond,
the Tenth Amendment, or even Article VI's Supremacy
Clause.6 See Gonzalez, 677 F.3d at 390–92 (contrasting
Elections Clause with Supremacy Clause and describing
former as “unique,” containing “[an] unusual delegation of
power,” and “unlike virtually all other provisions of the
Constitution”). And, of course, third-party standing under
Bond still presumes that the plaintiff otherwise meets the
requirements of Article III; as discussed above, Plaintiffs do
not.

6

Our conclusion departs from the recent decision of an
Eighth Circuit panel which, over a dissent, concluded
that candidates for the position of presidential elector
had standing under Bond to challenge a Minnesota statecourt consent decree that effectively extended the receipt
deadline for mailed ballots. See Carson v. Simon, No.
20-3139, ––– F.3d ––––, ––––, 2020 WL 6335967, at
*5 (8th Cir. Oct. 29, 2020). The Carson court appears
to have cited language from Bond without considering
the context—specifically, the Tenth Amendment and the
reserved police powers—in which the U.S. Supreme
Court employed that language. There is no precedent for
expanding Bond beyond this context, and the Carson
court cited none.

Plaintiff Bognet, a candidate for Congress who is currently a
private citizen, does not plead a cognizable injury by alleging
a “right to run in an election where Congress has paramount
authority,” Compl. ¶ 69, or by pointing to a “threatened”
reduction in the competitiveness of his election from counting
absentee ballots received within three days after Election Day.
Appellants’ Br. 21. Bognet does not explain how that “right
to run” affects him in a particularized way when, in fact,
all candidates in Pennsylvania, including Bognet's opponent,
are subject to the same rules. And Bognet does not explain
how counting more timely cast votes would lead to a less
competitive race, nor does he offer any evidence tending to
show that a greater proportion of mailed ballots received after
Election Day than on or before Election Day would be cast for
Bognet's opponent. What's more, for Bognet to have standing
to enjoin the counting of ballots arriving after Election Day,
such votes would have to be sufficient in number to change the
outcome of the election to Bognet's detriment. See, e.g., Sibley
v. Alexander, 916 F. Supp. 2d 58, 62 (D.D.C. 2013) (“[E]ven
if the Court granted the requested relief, [plaintiff] would
still fail to satisfy the redressability element [of standing]
because enjoining defendants from casting the ... votes would
not change the outcome of the election.” (citing Newdow
v. Roberts, 603 F.3d 1002, 1011 (D.C. Cir. 2010) (citations
omitted)). Bognet does not allege as much, and such a
prediction was inherently speculative when the complaint was
filed. The same can be said for Bognet's alleged wrongfully
incurred expenditures and future expenditures. Any harm
Bognet sought to avoid in making those expenditures was
not “certainly impending”—he spent the money to avoid
a speculative harm. See Donald J. Trump for Pres., Inc.
v. Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––,
2020 WL 5997680, at *36 (W.D. Pa. Oct. 10, 2020). Nor
are those expenditures “fairly traceable” under Article III to
the actions that Bognet challenges. See, e.g., Clapper, 568
U.S. at 402, 416, 133 S.Ct. 1138 (rejecting argument that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1415 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 19 Document 58-4

9

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

plaintiff can “manufacture standing by choosing to make
expenditures based on hypothetical future harm that is not
certainly impending”).7
7

The alleged injury specific to Bognet does not implicate
the Qualifications Clause or exclusion from Congress,
Powell v. McCormack, 395 U.S. 486, 550, 89 S.Ct. 1944,
23 L.Ed.2d 491 (1969), nor the standing of members of
Congress to bring actions alleging separation-of-powers
violations. Moore v. U.S. House of Reps., 733 F.2d 946,
959 (D.C. Cir. 1984) (Scalia, J., concurring).

*9 Plaintiffs therefore lack Article III standing to challenge
Defendants’ implementation of the Pennsylvania Supreme
Court's Deadline Extension and Presumption of Timeliness
under the Elections Clause and Electors Clause.

2. The Voter Plaintiffs lack standing under the Equal
Protection Clause.
Stressing the “personal” nature of the right to vote, the
Voter Plaintiffs assert two claims under the Equal Protection
8

Clause. First, they contend that the influence of their votes,
cast in person on Election Day, is “diluted” both by (a)
mailed ballots cast on or before Election Day but received
between Election Day and the Deadline Extension date,
ballots which Plaintiffs assert cannot be lawfully counted; and
(b) mailed ballots that were unlawfully cast (i.e., placed in
the mail) after Election Day but are still counted because of
the Presumption of Timeliness. Second, the Voter Plaintiffs
allege that the Deadline Extension and the Presumption
of Timeliness create a preferred class of voters based on
“arbitrary and disparate treatment” that values “one person's
vote over that of another.” Bush v. Gore, 531 U.S. 98, 104–05,
121 S.Ct. 525, 148 L.Ed.2d 388 (2000). The Voter Plaintiffs
lack Article III standing to assert either injury.
8

Only the Voter Plaintiffs bring the Equal Protection count
in the Complaint; Bognet did not join that count.

a. Vote Dilution
As discussed above, the foremost element of standing is injury
in fact, which requires the plaintiff to show a harm that is both
“concrete and particularized” and “actual or imminent, not
conjectural or hypothetical.” Spokeo, 136 S. Ct. at 1547–48
(citation omitted). The Voter Plaintiffs lack standing to redress
their alleged vote dilution because that alleged injury is not

concrete as to votes counted under the Deadline Extension,
nor is it particularized for Article III purposes as to votes
counted under the Deadline Extension or the Presumption of
Timeliness.

i. No concrete injury from vote dilution attributable to the
Deadline Extension.
The Voter Plaintiffs claim that Defendants’ implementation of
the Deadline Extension violates the Equal Protection Clause
because “unlawfully” counting ballots received within three
days of Election Day dilutes their votes. But the source of this
purported illegality is necessarily a matter of state law, which
makes any alleged harm abstract for purposes of the Equal
Protection Clause. And the purported vote dilution is also not
concrete because it would occur in equal proportion without
the alleged procedural illegality—that is, had the General
Assembly enacted the Deadline Extension, which the Voter
Plaintiffs do not challenge substantively.9
9

We exclude the Presumption of Timeliness from our
concreteness analysis. Plaintiffs allege that the federal
statutes providing for a uniform election day, 3 U.S.C.
§ 1 and 2 U.S.C. § 7, conflict with, and thus
displace, any state law that would authorize voting
after Election Day. They claim that the Presumption
permits, theoretically at least, some voters whose ballots
lack a legible postmark to vote after Election Day,
in violation of these federal statutes. So unlike the
Deadline Extension, Plaintiffs contend that the General
Assembly could not enact the Presumption consistent
with the Constitution. This conceptualization of injury
is thus more properly characterized as “concrete” than
is the purported Deadline Extension injury attributable
to voters having their timely voted ballots received and
counted after Election Day. That said, we express no
opinion about whether the Voter Plaintiffs have, in fact,
alleged such a concrete injury for standing purposes.

*10 The concreteness of the Voter Plaintiffs’ alleged vote
dilution stemming from the Deadline Extension turns on the
federal and state laws applicable to voting procedures. Federal
law does not provide for when or how ballot counting occurs.
See, e.g., Trump for Pres., Inc. v. Way, No. 20-cv-01753, –––
F.Supp.3d ––––, ––––, 2020 WL 5912561, at *12 (D.N.J.
Oct. 6, 2020) (“Plaintiffs direct the Court to no federal law
regulating methods of determining the timeliness of mail-in
ballots or requiring that mail-in ballots be postmarked.”); see
also Smiley v. Holm, 285 U.S. 355, 366, 52 S.Ct. 397, 76 L.Ed.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1416 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 19 Document 58-4

10

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

795 (1932) (noting that Elections Clause delegates to state
lawmaking processes all authority to prescribe “procedure
and safeguards” for “counting of votes”). Instead, the
Elections Clause delegates to each state's lawmaking function
the authority to prescribe such procedural regulations
applicable to federal elections. U.S. Term Limits, 514 U.S.
at 832–35, 115 S.Ct. 1842 (“The Framers intended the
Elections Clause to grant States authority to create procedural
regulations .... [including] ‘whether the electors should vote
by ballot or vivâ voce ....’ ” (quoting James Madison, 2
Records of the Federal Convention of 1787, at 240 (M.
Farrand ed. 1911) (cleaned up)); Smiley, 285 U.S. at 366, 52
S.Ct. 397 (describing state authority under Elections Clause
“to provide a complete code for congressional elections ...
in relation to notices, registration, supervision of voting,
protection of voters, prevention of fraud and corrupt practices,
counting of votes, duties of inspectors and canvassers, and
making and publication of election returns”). That delegation
of authority embraces all procedures “which experience
shows are necessary in order to enforce the fundamental right
involved.” Smiley, 285 U.S. at 366, 52 S.Ct. 397. Congress
exercises its power to “alter” state election regulations only if
the state regime cannot “operate harmoniously” with federal
election laws “in a single procedural scheme.” Gonzalez, 677
F.3d at 394.
The Deadline Extension and federal laws setting the date for
federal elections can, and indeed do, operate harmoniously.
At least 19 other States and the District of Columbia have
post-Election Day absentee ballot receipt deadlines.10 And
many States also accept absentee ballots mailed by overseas
uniformed servicemembers that are received after Election
Day, in accordance with the federal Uniformed and Overseas
Citizens Absentee Voting Act, 52 U.S.C. §§ 20301–20311.
So the Voter Plaintiffs’ only cognizable basis for alleging
dilution from the “unlawful” counting of invalid ballots
is state law defining lawful and unlawful ballot counting
practices. Cf. Wise v. Circosta, 978 F.3d 93, 100–01 (4th
Cir. 2020) (“Whether ballots are illegally counted if they are
received more than three days after Election Day depends on
an issue of state law from which we must abstain.” (emphasis
in original)), application for injunctive relief denied sub
nom. Moore v. Circosta, No. 20A72, 592 U.S. ––––, –––
S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6305036 (Oct.
28, 2020). The Voter Plaintiffs seem to admit as much,
arguing “that counting votes that are unlawful under the
General Assembly's enactments will unconstitutionally dilute
the lawful votes” cast by the Voter Plaintiffs. Appellants’
Br. 38; see also id. at 31. In other words, the Voter

Plaintiffs say that the Election Day ballot receipt deadline
in Pennsylvania's codified election law renders the ballots
untimely and therefore unlawful to count. Defendants, for
their part, contend that the Pennsylvania Supreme Court's
extension of that deadline under the Free and Equal Elections
Clause of the state constitution renders them timely, and
therefore lawful to count.
10

See AS § 15.20.081(e) & (h) (Alaska – 10 days after
Election Day if postmarked on or before Election Day);
West's Ann. Cal. Elec. Code § 3020(b) (California –
three days after Election Day if postmarked on or before
Election Day); DC ST § 1-1001.05(a)(10A) (District of
Columbia – seven days after the election if postmarked
on or before Election Day); 10 ILCS 5/19-8, 5/18A-15
(Illinois – 14 days after the election if postmarked on or
before Election Day); K.S.A. 25-1132 (Kansas – three
days after the election if postmarked before the close of
polls on Election Day); MD Code, Elec. Law, § 9-505
(Maryland – the second Friday after Election Day if
postmarked on or before Election Day); Miss. Code
Ann. § 23-15-637 (Mississippi – five business days after
Election Day if postmarked on or before Election Day);
NV Rev Stat § 293.317 (Nevada – by 5:00 P.M. on
the seventh day after Election Day if postmarked by
Election Day, and ballots with unclear postmarks must
be received by 5:00 P.M. on the third day after Election
Day); N.J.S.A. 19:63-22 (New Jersey – 48 hours after
polls close if postmarked on or before Election Day);
McKinney's Elec. Law § 8-412 (New York – seven
days after the election for mailed ballots postmarked
on Election Day); N.C. Gen. Stat. § 163-231(b)(2) and
Wise v. Circosta, 978 F.3d 93, 96 (4th Cir. 2020) (North
Carolina – recognizing extension from three to nine days
after the election the deadline for mail ballots postmarked
on or before Election Day); Texas Elec. Code § 86.007
(the day after the election by 5:00 P.M. if postmarked on
or before Election Day); Va. Code 24.2-709 (Virginia –
by noon on the third day after the election if postmarked
on or before Election Day); West's RCWA 29A.40.091
(Washington – no receipt deadline for ballots postmarked
on or before Election Day); W. Va. Code, §§ 3-3-5,
3-5-17 (West Virginia – five days after the election if
postmarked on or before Election Day); see also Iowa
Code § 53.17(2) (by noon the Monday following the
election if postmarked by the day before Election Day);
NDCC 16.1-07-09 (North Dakota – before the canvass if
postmarked the day before Election Day); R.C. § 3509.05
(Ohio – 10 days after the election if postmarked by the
day before Election Day); Utah Code Ann. § 20A-3a-204
(seven to 14 days after the election if postmarked the day
before the election).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1417 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 19 Document 58-4

11

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

*11 This conceptualization of vote dilution—state actors
counting ballots in violation of state election law—is not
a concrete harm under the Equal Protection Clause of the
Fourteenth Amendment. Violation of state election laws by
state officials or other unidentified third parties is not always
amenable to a federal constitutional claim. See Shipley v.
Chicago Bd. of Election Comm'rs, 947 F.3d 1056, 1062 (7th
Cir. 2020) (“A deliberate violation of state election laws
by state election officials does not transgress against the
Constitution.”) (cleaned up); Powell v. Power, 436 F.2d 84,
88 (2d Cir. 1970) (rejecting Equal Protection Clause claim
arising from state's erroneous counting of votes cast by voters
unqualified to participate in closed primary). “It was not
intended by the Fourteenth Amendment ... that all matters
formerly within the exclusive cognizance of the states should
become matters of national concern.” Snowden v. Hughes,
321 U.S. 1, 11, 64 S.Ct. 397, 88 L.Ed. 497 (1944).
Contrary to the Voter Plaintiffs’ conceptualization, vote
dilution under the Equal Protection Clause is concerned
with votes being weighed differently. See Rucho v. Common
Cause, ––– U.S. ––––, 139 S. Ct. 2484, 2501, 204 L.Ed.2d
931 (2019) (“ ‘[V]ote dilution’ in the one-person, onevote cases refers to the idea that each vote must carry
equal weight.” (emphasis added)); cf. Baten v. McMaster,
967 F.3d 345, 355 (4th Cir. 2020), as amended (July 27,
2020) (“[N]o vote in the South Carolina system is diluted.
Every qualified person gets one vote and each vote is
counted equally in determining the final tally.”). As explained
below, the Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes were
weighted differently. Instead, Plaintiffs advance an Equal
Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal
treatment. And if dilution of lawfully cast ballots by the
“unlawful” counting of invalidly cast ballots “were a true
equal-protection problem, then it would transform every
violation of state election law (and, actually, every violation
of every law) into a potential federal equal-protection claim
requiring scrutiny of the government's ‘interest’ in failing
to do more to stop the illegal activity.” Trump for Pres. v.
Boockvar, ––– F.Supp.3d at –––– – ––––, 2020 WL 5997680,
at *45–46. That is not how the Equal Protection Clause
works.11
11

Bush v. Gore does not require us to perform an Equal
Protection Clause analysis of Pennsylvania election law
as interpreted by the Pennsylvania Supreme Court. See
531 U.S. at 109, 121 S.Ct. 525 (“Our consideration is

limited to the present circumstances ....”); id. at 139–
40, 121 S.Ct. 525 (Ginsburg, J., dissenting) (discussing
“[r]are[ ]” occasions when Supreme Court rejected state
supreme court's interpretation of state law, one of which
was in 1813 and others occurred during Civil Rights
Movement—and none decided federal equal protection
issues).

Even if we were to entertain an end-run around the Voter
Plaintiffs’ lack of Elections Clause standing—by viewing the
federal Elections Clause as the source of “unlawfulness” of
Defendants’ vote counting—the alleged vote dilution would
not be a concrete injury. Consider, as we've noted, that the
Voter Plaintiffs take no issue with the content of the Deadline
Extension; they concede that the General Assembly, as other
state legislatures have done, could have enacted exactly the
same Deadline Extension as a valid “time[ ], place[ ], and
manner” regulation consistent with the Elections Clause.
Cf. Snowden, 321 U.S. at 8, 64 S.Ct. 397 (concluding that
alleged “unlawful administration by state officers of a state
statute fair on its face, resulting in its unequal application
to those who are entitled to be treated alike, is not a denial
of equal protection” (emphasis added)); Powell, 436 F.2d
at 88 (“Uneven or erroneous application of an otherwise
valid statute constitutes a denial of equal protection only
if it represents ‘intentional or purposeful discrimination.’
” (emphasis added) (quoting Snowden, 321 U.S. at 8, 64
S.Ct. 397)). Reduced to its essence, the Voter Plaintiffs’
claimed vote dilution would rest on their allegation that
federal law required a different state organ to issue the
Deadline Extension. The Voter Plaintiffs have not alleged,
for example, that they were prevented from casting their
votes, Guinn v. United States, 238 U.S. 347, 35 S.Ct. 926,
59 L.Ed. 1340 (1915), nor that their votes were not counted,
United States v. Mosley, 238 U.S. 383, 35 S.Ct. 904, 59
L.Ed. 1355 (1915). Any alleged harm of vote dilution that
turns not on the proportional influence of votes, but solely
on the federal illegality of the Deadline Extension, strikes
us as quintessentially abstract in the election law context
and “divorced from any concrete harm.” Spokeo, 136 S.
Ct. at 1549 (citing Summers v. Earth Island Inst., 555 U.S.
488, 496, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009)). That
the alleged violation here relates to election law and the
U.S. Constitution, rather than the mine-run federal consumer
privacy statute, does not abrogate the requirement that a
concrete harm must flow from the procedural illegality. See,
e.g., Lujan, 504 U.S. at 576, 112 S.Ct. 2130 (“[T]here is
absolutely no basis for making the Article III inquiry turn on
the source of the asserted right.”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1418 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 19 Document 58-4

12

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

*12 The Voter Plaintiffs thus lack a concrete Equal
Protection Clause injury for their alleged harm of vote
dilution attributable to the Deadline Extension.

ii. No particularized injury from votes counted under the
Deadline Extension or the Presumption of Timeliness.
The opposite of a “particularized” injury is a “generalized
grievance,” where “the impact on plaintiff is plainly
undifferentiated and common to all members of the public.”
Id. at 575, 112 S.Ct. 2130 (cleaned up); see also Lance, 549
U.S. at 439, 127 S.Ct. 1194. The District Court correctly held
that the Voter Plaintiffs’ “dilution” claim is a “paradigmatic
generalized grievance that cannot support standing.” Bognet,
2020 WL 6323121, at *4 (quoting Carson v. Simon, No. 20cv-02030, ––– F.Supp.3d ––––, ––––, 2020 WL 6018957,
at *7 (D. Minn. Oct. 12, 2020), rev'd on other grounds,
No. 20-3139, ––– F.3d ––––, 2020 WL 6335967 (8th Cir.
Oct. 29, 2020)). The Deadline Extension and Presumption
of Timeliness, assuming they operate to allow the illegal
counting of unlawful votes, “dilute” the influence of all voters
in Pennsylvania equally and in an “undifferentiated” manner
and do not dilute a certain group of voters particularly.
12

12

In their complaint, the Voter Plaintiffs alleged that
they are all “residents of Somerset County, a county
where voters are requesting absentee ballots at a rate
far less than the state average” and thus, somehow,
the Voter Plaintiffs’ votes “will be diluted to a greater
degree than other voters.” Compl. ¶ 71 (emphasis in
original). Plaintiffs continue to advance this argument
on appeal in support of standing, and it additionally
suffers from being a conjectural or hypothetical injury
under the framework discussed infra Section III.A.2.b.ii.
It is purely hypothetical that counties where a greater
percentage of voters request absentee ballots will more
frequently have those ballots received after Election Day.

Put another way, “[a] vote cast by fraud or mailed in by
the wrong person through mistake,” or otherwise counted
illegally, “has a mathematical impact on the final tally
and thus on the proportional effect of every vote, but no
single voter is specifically disadvantaged.” Martel v. Condos,
No. 5:20-cv-00131, ––– F.Supp.3d ––––, ––––, 2020 WL
5755289, at *4 (D. Vt. Sept. 16, 2020). Such an alleged
“dilution” is suffered equally by all voters and is not
“particularized” for standing purposes. The courts to consider
this issue are in accord. See id.; Carson, ––– F.Supp.3d at
–––– – ––––, 2020 WL 6018957, at *7–8; Moore v. Circosta,

Nos. 1:20-cv-00911, 1:20-cv-00912, ––– F.Supp.3d ––––,
––––, 2020 WL 6063332, at *14 (M.D.N.C. Oct. 14, 2020),
emergency injunction pending appeal denied sub nom. Wise
v. Circosta, 978 F.3d 93 (4th Cir. 2020), application for
injunctive relief denied sub nom. Moore v. Circosta, No.
20A72, 592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6305036 (U.S. Oct. 28, 2020); Paher v. Cegavske,
457 F. Supp. 3d 919, 926–27 (D. Nev. Apr. 30, 2020).
But the Voter Plaintiffs argue that their purported “vote
dilution” is an injury in fact sufficient to confer standing, and
not a generalized grievance belonging to all voters, because
the Supreme Court has “long recognized that a person's
right to vote is ‘individual and personal in nature.’ ” Gill v.
Whitford, ––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d
313 (2018) (quoting Reynolds v. Sims, 377 U.S. 533, 561, 84
S.Ct. 1362, 12 L.Ed.2d 506 (1964)). “Thus, ‘voters who allege
facts showing disadvantage to themselves as individuals have
standing to sue’ to remedy that disadvantage.” Id. (quoting
Baker v. Carr, 369 U.S. 186, 206, 82 S.Ct. 691, 7 L.Ed.2d 663
(1962)).
*13 The Voter Plaintiffs’ reliance on this language
from Baker and Reynolds is misplaced. In Baker, the
plaintiffs challenged Tennessee's apportionment of seats in its
legislature as violative of the Equal Protection Clause of the
Fourteenth Amendment. 369 U.S. at 193, 82 S.Ct. 691. The
Supreme Court held that the plaintiffs did have standing under
Article III because “[t]he injury which appellants assert is that
this classification disfavors the voters in the counties in which
they reside, placing them in a position of constitutionally
unjustifiable inequality vis-à-vis voters in irrationally favored
counties.” Id. at 207–08, 82 S.Ct. 691.
Although the Baker Court did not decide the merits of the
Equal Protection claim, the Court in a series of cases—
including Gray v. Sanders, 372 U.S. 368, 83 S.Ct. 801,
9 L.Ed.2d 821 (1963), and Reynolds—made clear that the
Equal Protection Clause prohibits a state from “diluti[ng] ...
the weight of the votes of certain ... voters merely because
of where they reside[ ],” just as it prevents a state from
discriminating on the basis of the voter's race or sex.
Reynolds, 377 U.S. at 557, 84 S.Ct. 1362 (emphasis added).
The Voter Plaintiffs consider it significant that the Court in
Reynolds noted—though not in the context of standing—that
“the right to vote” is “individual and personal in nature.”
Id. at 561, 84 S.Ct. 1362 (quoting United States v. Bathgate,
246 U.S. 220, 227, 38 S.Ct. 269, 62 L.Ed. 676 (1918)). The
Court then explained that a voter's right to vote encompasses

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1419 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 19 Document 58-4

13

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

both the right to cast that vote and the right to have that vote
counted without “debasement or dilution”:
The right to vote can neither be denied outright, Guinn
v. United States, 238 U.S. 347 [35 S.Ct. 926, 59 L.Ed.
1340 (1915) ], Lane v. Wilson, 307 U.S. 268 [59 S.Ct.
872, 83 L.Ed. 1281 (1939) ], nor destroyed by alteration
of ballots, see United States v. Classic, 313 U.S. 299, 315
[61 S.Ct. 1031, 85 L.Ed. 1368 (1941) ], nor diluted by
ballot-box stuffing, Ex parte Siebold, 100 U.S. 371 [25
L.Ed. 717 (1880) ], United States v. Saylor, 322 U.S. 385
[64 S.Ct. 1101, 88 L.Ed. 1341 (1944) ]. As the Court
stated in Classic, “Obviously included within the right to
choose, secured by the Constitution, is the right of qualified
voters within a state to cast their ballots and have them
counted ....” 313 U.S. at 315 [61 S.Ct. 1031].
...
“The right to vote includes the right to have the ballot
counted. ... It also includes the right to have the vote
counted at full value without dilution or discount. ... That
federally protected right suffers substantial dilution ...
[where a] favored group has full voting strength ... [and]
[t]he groups not in favor have their votes discounted.”
Reynolds, 377 U.S. at 555 & n.29, 84 S.Ct. 1362 (alterations
in last paragraph in original) (quoting South v. Peters, 339
U.S. 276, 279, 70 S.Ct. 641, 94 L.Ed. 834 (1950) (Douglas,
J., dissenting)).
Still, it does not follow from the labeling of the right to vote as
“personal” in Baker and Reynolds that any alleged illegality
affecting voting rights rises to the level of an injury in fact.
After all, the Court has observed that the harms underlying
a racial gerrymandering claim under the Equal Protection
Clause “are personal” in part because they include the harm of
a voter “being personally subjected to a racial classification.”
Ala. Legis. Black Caucus v. Alabama, 575 U.S. 254, 263,
135 S.Ct. 1257, 191 L.Ed.2d 314 (2015) (cleaned up). Yet a
voter “who complains of gerrymandering, but who does not
live in a gerrymandered district, ‘assert[s] only a generalized
grievance against governmental conduct of which he or she
does not approve.’ ” Gill, 138 S. Ct. at 1930 (quoting United
States v. Hays, 515 U.S. 737, 745, 115 S.Ct. 2431, 132
L.Ed.2d 635 (1995)) (alteration in original). The key inquiry
for standing is whether the alleged violation of the right to
vote arises from an invidious classification—including those
based on “race, sex, economic status, or place of residence
within a State,” Reynolds, 377 U.S. at 561, 84 S.Ct. 1362—
to which the plaintiff is subject and in which “the favored

group has full voting strength and the groups not in favor
have their votes discounted,” id. at 555 n.29, 84 S.Ct. 1362
(cleaned up). In other words, “voters who allege facts showing
disadvantage to themselves” have standing to bring suit to
remedy that disadvantage, Baker, 369 U.S. at 206, 82 S.Ct.
691 (emphasis added), but a disadvantage to the plaintiff
exists only when the plaintiff is part of a group of voters whose
votes will be weighed differently compared to another group.
Here, no Pennsylvania voter's vote will count for less than that
of any other voter as a result of the Deadline Extension and
Presumption of Timeliness.13
13

Plaintiffs also rely on FEC v. Akins, 524 U.S. 11, 118
S.Ct. 1777, 141 L.Ed.2d 10 (1998), for the proposition
that a widespread injury—such as a mass tort injury or an
injury “where large numbers of voters suffer interference
with voting rights conferred by law”—does not become
a “generalized grievance” just because many share it. Id.
at 24–25, 118 S.Ct. 1777. That's true as far as it goes.
But the Voter Plaintiffs have not alleged an injury like
that at issue in Akins. There, the plaintiffs’ claimed injury
was their inability to obtain information they alleged
was required to be disclosed under the Federal Election
Campaign Act. Id. at 21, 118 S.Ct. 1777. The plaintiffs
alleged a statutory right to obtain information and that
the same information was being withheld. Here, the Voter
Plaintiffs’ alleged injury is to their right under the Equal
Protection Clause not to have their votes “diluted,” but
the Voter Plaintiffs have not alleged that their votes are
less influential than any other vote.

*14 This conclusion cannot be avoided by describing
one group of voters as “those ... who lawfully vote in
person and submit their ballots on time” and the other
group of voters as those whose (mail-in) ballots arrive
after Election Day and are counted because of the Deadline
Extension and/or the Presumption of Timeliness. Appellants’
Br. 33 (emphasis in original). Although the former group,
under Plaintiffs’ theory, should make up 100% of the total
votes counted and the latter group 0%, there is simply no
differential weighing of the votes. See Wise, 978 F.3d at
104 (Motz, J., concurring) (“But if the extension went into
effect, plaintiffs’ votes would not count for less relative to
other North Carolina voters. This is the core of an Equal
Protection Clause challenge.” (emphasis in original)). Unlike
the malapportionment or racial gerrymandering cases, a vote
cast by a voter in the so-called “favored” group counts not one
bit more than the same vote cast by the “disfavored” group—
no matter what set of scales one might choose to employ. Cf.
Reynolds, 377 U.S. at 555 n.29, 84 S.Ct. 1362. And, however
one tries to draw a contrast, this division is not based on

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1420 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 19 Document 58-4

14

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

a voter's personal characteristics at all, let alone a person's
race, sex, economic status, or place of residence. Two voters
could each have cast a mail-in ballot before Election Day at
the same time, yet perhaps only one of their ballots arrived
by 8:00 P.M. on Election Day, given USPS's mail delivery
process. It is passing strange to assume that one of these voters
would be denied “equal protection of the laws” were both
votes counted. U.S. Const. amend. XIV, § 1.
The Voter Plaintiffs also emphasize language from Reynolds
that “[t]he right to vote can neither be denied outright ... nor
diluted by ballot-box stuffing.” 377 U.S. at 555, 84 S.Ct. 1362
(citing Ex parte Siebold, 100 U.S. 371, 25 L.Ed. 717 (1879);
United States v. Saylor, 322 U.S. 385, 64 S.Ct. 1101, 88 L.Ed.
1341 (1944)). In the first place, casting a vote in accordance
with a procedure approved by a state's highest court—even
assuming that approval violates the Elections Clause—is not
equivalent to “ballot-box stuffing.” The Supreme Court has
only addressed this “false”-tally type of dilution where the
tally was false as a result of a scheme to cast falsified or
fraudulent votes. See Saylor, 322 U.S. at 386, 64 S.Ct. 1101.
We are in uncharted territory when we are asked to declare
that a tally that includes false or fraudulent votes is equivalent
to a tally that includes votes that are or may be unlawful
for non-fraudulent reasons, and so is more aptly described as
“incorrect.” Cf. Gray, 372 U.S. at 386, 83 S.Ct. 801 (Harlan,
J., dissenting) (“[I]t is hard to take seriously the argument
that ‘dilution’ of a vote in consequence of a legislatively
sanctioned electoral system can, without more, be analogized
to an impairment of the political franchise by ballot box
stuffing or other criminal activity.”).
Yet even were this analogy less imperfect, it still would not
follow that every such “false” or incorrect tally is an injury
in fact for purposes of an Equal Protection Clause claim. The
Court's cases that describe ballot-box stuffing as an injury
to the right to vote have arisen from criminal prosecutions
under statutes making it unlawful for anyone to injure the
exercise of another's constitutional right. See, e.g., Ex parte
Siebold, 100 U.S. at 373–74 (application for writ of habeas
corpus); Saylor, 322 U.S. at 385–86, 64 S.Ct. 1101 (criminal
appeal regarding whether statute prohibiting “conspir[ing]
to injure ... any citizen in the free exercise ... of any right
or privilege secured to him by the Constitution” applied to
conspiracy to stuff ballot boxes); Anderson v. United States,
417 U.S. 211, 226, 94 S.Ct. 2253, 41 L.Ed.2d 20 (1974)
(criminal prosecution for conspiracy to stuff ballot boxes
under successor to statute in Saylor). Standing was, of course,
never an issue in those cases because the Government was

enforcing its criminal laws. Here, the Voter Plaintiffs, who
bear the burden to show standing, have presented no instance
in which an individual voter had Article III standing to claim
an equal protection harm to his or her vote from the existence
of an allegedly illegal vote cast by someone else in the same
election.
Indeed, the logical conclusion of the Voter Plaintiffs’ theory
is that whenever an elections board counts any ballot that
deviates in some way from the requirements of a state's
legislatively enacted election code, there is a particularized
injury in fact sufficient to confer Article III standing on every
other voter—provided the remainder of the standing analysis
is satisfied. Allowing standing for such an injury strikes us
as indistinguishable from the proposition that a plaintiff has
Article III standing to assert a general interest in seeing
the “proper application of the Constitution and laws”—a
proposition that the Supreme Court has firmly rejected. Lujan,
504 U.S. at 573–74, 112 S.Ct. 2130. The Voter Plaintiffs thus
lack standing to bring their Equal Protection vote dilution
claim.

b. Arbitrary and Disparate Treatment
*15 The Voter Plaintiffs also lack standing to allege an
injury in the form of “arbitrary and disparate treatment”
of a preferred class of voters because the Voter Plaintiffs
have not alleged a legally cognizable “preferred class” for
equal protection purposes, and because the alleged harm from
votes counted solely due to the Presumption of Timeliness is
hypothetical or conjectural.

i. No legally protected “preferred class.”
The District Court held that the Presumption of Timeliness
creates a “preferred class of voters” who are “able to cast
their ballots after the congressionally established Election
Day” because it “extends the date of the election by multiple
days for a select group of mail-in voters whose ballots will
be presumed to be timely in the absence of a verifiable
postmark.”14 Bognet, 2020 WL 6323121, at *6. The District
Court reasoned, then, that the differential treatment between
groups of voters is by itself an injury for standing purposes.
To the District Court, this supposed “unequal treatment of
voters ... harms the [Voter] Plaintiffs because, as in-person
voters, they must vote by the end of the congressionally
established Election Day in order to have their votes counted.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1421 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 19 Document 58-4

15

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Id. The District Court cited no case law in support of its
conclusion that the injury it identified gives rise to Article III
standing.
14

The District Court did not find that the Deadline
Extension created such a preferred class.

The District Court's analysis suffers from several flaws. First,
the Deadline Extension and Presumption of Timeliness apply
to all voters, not just a subset of “preferred” voters. It is an
individual voter's choice whether to vote by mail or in person,
and thus whether to become a part of the so-called “preferred
class” that the District Court identified. Whether to join the
“preferred class” of mail-in voters was entirely up to the Voter
Plaintiffs.
Second, it is not clear that the mere creation of so-called
“classes” of voters constitutes an injury in fact. An injury in
fact requires the “invasion of a legally protected interest.”
Lujan, 504 U.S. at 560, 112 S.Ct. 2130. We doubt that
the mere existence of groupings of voters qualifies as an
injury per se. “An equal protection claim will not lie by
‘conflating all persons not injured into a preferred class
receiving better treatment’ than the plaintiff.” Thornton v. City
of St. Helens, 425 F.3d 1158, 1167 (9th Cir. 2005) (quoting
Joyce v. Mavromatis, 783 F.2d 56, 57 (6th Cir. 1986)); see
also, e.g., Batra v. Bd. of Regents of Univ. of Neb., 79 F.3d 717,
721 (8th Cir. 1996) (“[T]he relevant prerequisite is unlawful
discrimination, not whether plaintiff is part of a victimized
class.”). More importantly, the Voter Plaintiffs have shown
no disadvantage to themselves that arises simply by being
separated into groupings. For instance, there is no argument
that it is inappropriate that some voters will vote in person and
others will vote by mail. The existence of these two groups of
voters, without more, simply does not constitute an injury in
fact to in-person voters.
Plaintiffs may believe that injury arises because of a
preference shown for one class over another. But what,
precisely, is the preference of which Plaintiffs complain? In
Bush v. Gore, the Supreme Court held that a State may not
engage in arbitrary and disparate treatment that results in
the valuation of one person's vote over that of another. 531
U.S. at 104–05, 121 S.Ct. 525. Thus, “the right of suffrage
can be denied by a debasement or dilution of the weight of
a citizen's vote just as effectively as by wholly prohibiting
the free exercise of the franchise.” Id. at 105, 121 S.Ct. 525
(quoting Reynolds, 377 U.S. at 555, 84 S.Ct. 1362) (emphasis
added). As we have already discussed, vote dilution is not an
injury in fact here.

*16 What about the risk that some ballots placed in the
mail after Election Day may still be counted? Recall that
no voter—whether in person or by mail—is permitted to
vote after Election Day. Under Plaintiffs’ argument, it might
theoretically be easier for one group of voters—mail-in voters
—to illegally cast late votes than it is for another group of
voters—in-person voters. But even if that is the case, no
group of voters has the right to vote after the deadline.15 We
remember that “a private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.”
Linda R.S. v. Richard D., 410 U.S. 614, 619, 93 S.Ct. 1146, 35
L.Ed.2d 536 (1973) (citations omitted). And “a plaintiff lacks
standing to complain about his inability to commit crimes
because no one has a right to commit a crime.” Citizen Ctr.
v. Gessler, 770 F.3d 900, 910 (10th Cir. 2014). Without a
showing of discrimination or other intentionally unlawful
conduct, or at least some burden on Plaintiffs’ own voting
rights, we discern no basis on which they have standing to
challenge the slim opportunity the Presumption of Timeliness
conceivably affords wrongdoers to violate election law. Cf.
Minn. Voters Alliance v. Ritchie, 720 F.3d 1029, 1033 (8th Cir.
2013) (affirming dismissal of claims “premised on potential
harm in the form of vote dilution caused by insufficient
pre-election verification of [election day registrants’] voting
eligibility and the absence of post-election ballot rescission
procedures”).
15

Moreover, we cannot overlook that the mail-in voters
potentially suffer a disadvantage relative to the in-person
voters. Whereas in-person ballots that are timely cast will
count, timely cast mail-in ballots may not count because,
given mail delivery rates, they may not be received by
5:00 P.M. on November 6.

ii. Speculative injury from ballots counted under the
Presumption of Timeliness.
Plaintiffs’ theory as to the Presumption of Timeliness focuses
on the potential for some voters to vote after Election Day
and still have their votes counted. This argument reveals that
their alleged injury in fact attributable to the Presumption is
“conjectural or hypothetical” instead of “actual or imminent.”
Spokeo, 136 S. Ct. at 1547–48 (quoting Lujan, 504 U.S. at
560, 112 S.Ct. 2130). The Supreme Court has emphasized
that a threatened injury must be “certainly impending” and
not merely “possible” for it to constitute an injury in fact.
Clapper, 568 U.S. at 409, 133 S.Ct. 1138 (emphasis in
original) (quoting Whitmore v. Ark., 495 U.S. 149, 158, 110

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1422 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 19 Document 58-4

16

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

S.Ct. 1717, 109 L.Ed.2d 135 (1990)). When determining
Article III standing, our Court accepts allegations based
on well-pleaded facts; but we do not credit bald assertions
that rest on mere supposition. Finkelman v. NFL, 810 F.3d
187, 201–02 (3d Cir. 2016). The Supreme Court has also
emphasized its “reluctance to endorse standing theories that
rest on speculation about the decisions of independent actors.”
Clapper, 568 U.S. at 414, 133 S.Ct. 1138. A standing
theory becomes even more speculative when it requires that
independent actors make decisions to act unlawfully. See City
of L.A. v. Lyons, 461 U.S. 95, 105–06 & 106 n.7, 103 S.Ct.
1660, 75 L.Ed.2d 675 (1983) (rejecting Article III standing
to seek injunction where party invoking federal jurisdiction
would have to establish that he would unlawfully resist arrest
or police officers would violate department orders in future).
Here, the Presumption of Timeliness could inflict injury on
the Voter Plaintiffs only if: (1) another voter violates the
law by casting an absentee ballot after Election Day; (2)
the illegally cast ballot does not bear a legible postmark,
which is against USPS policy;16 (3) that same ballot still
arrives within three days of Election Day, which is faster
than USPS anticipates mail delivery will occur;17 (4) the
ballot lacks sufficient indicia of its untimeliness to overcome
the Presumption of Timeliness; and (5) that same ballot is
ultimately counted. See Donald J. Trump for Pres., Inc. v.
Way, No. 20-cv-10753, 2020 WL 6204477, at *7 (D.N.J.
Oct. 22, 2020) (laying out similar “unlikely chain of events”
required for vote dilution harm from postmark rule under
New Jersey election law); see also Reilly v. Ceridian Corp.,
664 F.3d 38, 43 (3d Cir. 2011) (holding purported injury
in fact was too conjectural where “we cannot now describe
how Appellants will be injured in this case without beginning
our explanation with the word ‘if’ ”). This parade of
horribles “may never come to pass,” Trump for Pres. v.
Boockvar, 2020 WL 5997680, at *33, and we are especially
reluctant to endorse such a speculative theory of injury
given Pennsylvania's “own mechanisms for deterring and
prosecuting voter fraud,” Donald J. Trump for Pres., Inc. v.
Cegavske, No. 20-1445, ––– F.Supp.3d ––––, ––––, 2020 WL
5626974, at *6 (D. Nev. Sept. 18, 2020).18
16
17

See Defendant-Appellee's Br. 30 (citing 39 C.F.R. §
211.2(a)(2); Postal Operations Manual at 443.3).
See Pa. Democratic Party, 238 A.3d at 364 (noting
“current two to five day delivery expectation of the
USPS”).

18

Indeed, the conduct required of a voter to effectuate
such a scheme may be punishable as a crime under
Pennsylvania statutes that criminalize forging or “falsely
mak[ing] the official endorsement on any ballot,” 25 Pa.
Stat. & Cons. Stat. § 3517 (punishable by up to two
years’ imprisonment); “willfully disobey[ing] any lawful
instruction or order of any county board of elections,” id.
§ 3501 (punishable by up to one year's imprisonment);
or voting twice in one election, id. § 3535 (punishable by
up to seven years’ imprisonment).

*17 To date, the Secretary has reported that at least 655
ballots without a legible postmark have been collected within
the Deadline Extension period.19 But it is mere speculation
to say that any one of those ballots was cast after Election
Day. We are reluctant to conclude that an independent actor
—here, one of 655 voters—decided to mail his or her ballot
after Election Day contrary to law. The Voter Plaintiffs have
not provided any empirical evidence on the frequency of voter
fraud or the speed of mail delivery that would establish a
statistical likelihood or even the plausibility that any of the
655 ballots was cast after Election Day. Any injury to the
Voter Plaintiffs attributable to the Presumption of Timeliness
is merely “possible,” not “actual or imminent,” and thus
cannot constitute an injury in fact.
19

As of the morning of November 12, Secretary Boockvar
estimates that 655 of the 9383 ballots received between
8:00 P.M. on Election Day and 5:00 P.M. on November
6 lack a legible postmark. See Dkt. No. 59. That estimate
of 655 ballots does not include totals from five of
Pennsylvania's 67 counties: Lehigh, Northumberland,
Tioga, Warren, and Wayne. Id. The 9383 ballots received,
however, account for all of Pennsylvania's counties. Id.

B. Purcell
Even were we to conclude that Plaintiffs have standing, we
could not say that the District Court abused its discretion in
concluding on this record that the Supreme Court's electionlaw jurisprudence counseled against injunctive relief. Unique
and important equitable considerations, including voters’
reliance on the rules in place when they made their plans
to vote and chose how to cast their ballots, support that
disposition. Plaintiffs’ requested relief would have upended
this status quo, which is generally disfavored under the “voter
confusion” and election confidence rationales of Purcell v.
Gonzalez, 549 U.S. 1, 4–5, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006).
One can assume for the sake of argument that aspects of
the now-prevailing regime in Pennsylvania are unlawful as
alleged and still recognize that, given the timing of Plaintiffs’

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1423 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 19 Document 58-4

17

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

request for injunctive relief, the electoral calendar was such
that following it “one last time” was the better of the choices
available. Perez, 138 S. Ct. at 2324 (“And if a [redistricting]
plan is found to be unlawful very close to the election date, the
only reasonable option may be to use the plan one last time.”).

(Oct. 26, 2020) (denying application to vacate stay). Justice
Kavanaugh explained that the injunction was improper for
the “independent reason[ ]” that “the District Court changed
Wisconsin's election rules too close to the election, in
contravention of this Court's precedents.” Id. at ––––, 2020
WL 6275871 at *3 (Kavanaugh, J., concurring). Purcell and

Here, less than two weeks before Election Day, Plaintiffs
asked the District Court to enjoin a deadline established by
the Pennsylvania Supreme Court on September 17, a deadline
that may have informed voters’ decisions about whether and
when to request mail-in ballots as well as when and how
they cast or intended to cast them. In such circumstances,
the District Court was well within its discretion to give heed
to Supreme Court decisions instructing that “federal courts
should ordinarily not alter the election rules on the eve of
an election.” Republican Nat'l Comm. v. Democratic Nat'l
Comm., ––– U.S. ––––, 140 S. Ct. 1205, 1207, 206 L.Ed.2d
452 (2020) (per curiam) (citing Purcell, 549 U.S. at 1, 127
S.Ct. 5).

a string20 of Supreme Court election-law decisions in 2020
“recognize a basic tenet of election law: When an election is
close at hand, the rules of the road should be clear and settled.”
Id.

In Purcell, an appeal from a federal court order enjoining
the State of Arizona from enforcing its voter identification
law, the Supreme Court acknowledged that “[c]onfidence
in the integrity of our electoral processes is essential to
the functioning of our participatory democracy.” 549 U.S.
at 4, 127 S.Ct. 5. In other words, “[c]ourt orders affecting
elections, especially conflicting orders, can themselves result
in voter confusion and consequent incentive to remain away
from the polls. As an election draws closer, that risk will
increase.” Id. at 4–5, 127 S.Ct. 5. Mindful of “the necessity for
clear guidance to the State of Arizona” and “the imminence
of the election,” the Court vacated the injunction. Id. at 5, 127
S.Ct. 5.
The principle announced in Purcell has very recently been
reiterated. First, in Republican National Committee, the
Supreme Court stayed on the eve of the April 7 Wisconsin
primary a district court order that altered the State's voting
rules by extending certain deadlines applicable to absentee
ballots. 140 S. Ct. at 1206. The Court noted that it was
adhering to Purcell and had “repeatedly emphasized that
lower federal courts should ordinarily not alter the election
rules on the eve of an election.” Id. at 1207 (citing Purcell,
549 U.S. at 1, 127 S.Ct. 5). And just over two weeks
ago, the Court denied an application to vacate a stay of a
district court order that made similar changes to Wisconsin's
election rules six weeks before Election Day. Democratic
Nat'l Comm. v. Wis. State Legislature, No. 20A66, 592 U.S.
––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6275871

20

See, e.g., Andino v. Middleton, No. 20A55, 592 U.S.
––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020
WL 5887393, at *1 (Oct. 5, 2020) (Kavanaugh, J.,
concurring) (“By enjoining South Carolina's witness
requirement shortly before the election, the District
Court defied [the Purcell] principle and this Court's
precedents.” (citations omitted)); Merrill v. People First
of Ala., No. 19A1063, 591 U.S. ––––, ––– S.Ct. ––––,
––––, ––– L.Ed.2d ––––, 2020 WL 3604049 (Mem.), at
*1 (July 2, 2020); Republican Nat'l Comm., 140 S. Ct. at
1207; see also Democratic Nat'l Comm. v. Bostelmann,
977 F.3d 639, 641 (7th Cir. 2020) (per curiam) (holding
that injunction issued six weeks before election violated
Purcell); New Ga. Project v. Raffensperger, 976 F.3d
1278, 1283 (11th Cir. Oct. 2, 2020) (“[W]e are not on
the eve of the election—we are in the middle of it,
with absentee ballots already printed and mailed. An
injunction here would thus violate Purcell’s well-known
caution against federal courts mandating new election
rules—especially at the last minute.” (citing Purcell, 549
U.S. at 4–5, 127 S.Ct. 5)).

*18 The prevailing state election rule in Pennsylvania
permitted voters to mail ballots up through 8:00 P.M. on
Election Day so long as their ballots arrived by 5:00 P.M.
on November 6. Whether that rule was wisely or properly
put in place is not before us now. What matters for our
purposes today is that Plaintiffs’ challenge to it was not filed
until sufficiently close to the election to raise a reasonable
concern in the District Court that more harm than good would
come from an injunction changing the rule. In sum, the
District Court's justifiable reliance on Purcell constitutes an
“alternative and independent reason[ ]” for concluding that
an “injunction was unwarranted” here. Wis. State Legislature,
––– S.Ct. at ––––, 2020 WL 6275871, at *3 (Kavanaugh, J.,
concurring).

IV. Conclusion

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1424 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 19 Document 58-4

18

Ex. 4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

We do not decide today whether the Deadline Extension
or the Presumption of Timeliness are proper exercises of
the Commonwealth of Pennsylvania's lawmaking authority,
delegated by the U.S. Constitution, to regulate federal
elections. Nor do we evaluate the policy wisdom of those
two features of the Pennsylvania Supreme Court's ruling.
We hold only that when voters cast their ballots under a
state's facially lawful election rule and in accordance with
instructions from the state's election officials, private citizens
lack Article III standing to enjoin the counting of those ballots
on the grounds that the source of the rule was the wrong
state organ or that doing so dilutes their votes or constitutes
End of Document

differential treatment of voters in violation of the Equal
Protection Clause. Further, and independent of our holding
on standing, we hold that the District Court did not err in
denying Plaintiffs’ motion for injunctive relief out of concern
for the settled expectations of voters and election officials. We
will affirm the District Court's denial of Plaintiffs’ emergency
motion for a TRO or preliminary injunction.
All Citations
--- F.3d ----, 2020 WL 6686120

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1425 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 19 Document 58-4

19

Ex. 4

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

2020 WL 5997680
Only the Westlaw citation is currently available.
United States District Court, W.D. Pennsylvania.

DONALD J. TRUMP FOR
PRESIDENT, INC., et al., Plaintiffs
v.
Kathy BOOCKVAR, in her capacity
as Secretary of the Commonwealth
of Pennsylvania, et al., Defendants.
No. 2:20-cv-966
|
Signed 10/10/2020
Synopsis
Background: President's reelection campaign, Republican
National Committee, and Republican congressional
candidates and electors filed suit against state and county
election officials alleging federal and state constitutional
violations stemming from Pennsylvania's implementation
of mail-in voting plan for upcoming general election and
its poll watcher residency requirement. State Democratic
Party, advocacy organizations, and their members intervened.
Parties filed cross-motions for summary judgment.

Holdings: The District Court, J. Nicholas Ranjan, J., held
that:
plaintiffs' claims were ripe for adjudication;
any injury that plaintiffs would suffer was too speculative to
establish Article III standing;
use of unmanned drop boxes for mail-in ballots by some
counties, but not others, did not violate Equal Protection
Clause;
use of unmanned drop boxes for mail-in ballots did not violate
substantive due process principles;
state law did not impose signature comparison requirement
for mail-in and absentee ballots;

state law did not impose signature comparison requirement
for applications for mail-in and absentee ballots;
fact that some county boards of elections intended to verify
signatures on mail-in and absentee ballots and applications,
while others did not, did not violate Equal Protection Clause;
fact that state did not require signature comparison for mailin and absentee ballots, but did for in-person ballots, did not
violate Equal Protection Clause; and
county residency requirement on being poll watcher did not
violate plaintiffs' constitutional rights.
Defendants' motion granted.
Attorneys and Law Firms
Ronald L. Hicks, Jr., Carolyn Batz McGee, Jeremy A. Mercer,
Russell D. Giancola, Devin A. Winklosky, Porter Wright
Morris & Arthur LLP, Pittsburgh, PA, Justin R. Clark, Pro Hac
Vice, Matthew Earl Morgan, Pro Hac Vice, Elections LLC,
Washington, DC, for Plaintiffs.
Daniel T. Donovan, Pro Hac Vice, Caroline Darmody, Pro
Hac Vice, Kristen Leigh Bokhan, Michael Glick, Pro Hac
Vice, Susan Marie Davies, Pro Hac Vice, Kirkland & Ellis
LLP, Washington, DC, Howard G. Hopkirk, Karen Mascio
Romano, Keli Marie Neary, Pro Hac Vice, Nicole Boland, Pro
Hac Vice, Stephen Moniak, Pennsylvania Office of Attorney
General, Kathleen M. Kotula, Kenneth L. Joel, M. Abbegael
Giunta, Governor's Office of General Counsel, Timothy
Gates, Pennsylvania Department of State Office of Chief
Counsel, Harrisburg, PA, Daniel T. Brier, Donna A. Walsh,
John B. Dempsey, Nicholas F. Kravitz, Pro Hac Vice, Myers,
Brier & Kelly, LLP, Scranton, PA, Jaywin Singh Malhi, Pro
Hac Vice, Madelyn Morris, Sara S. Tatum, Kirkland & Ellis
LLP, New York, NY, for Defendant Kathy Boockvar.
Molly R. Mudd, Pro Hac Vice, County of Adams, Gettysburg,
PA, for Defendant Adams County Board of Elections.
Andrew F. Szefi, Allan J. Opsitnick, George M. Janocsko,
Allegheny County Law Department, Pittsburgh, PA, for
Defendant Allegheny County Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst, Calland, Clements and Zomnir,
P.C., Pittsburgh, PA, Elizabeth A. Dupuis, Babst Calland,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1426 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 64 Document 58-5

1

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

State College, PA, for Defendants Armstrong County Board
of Elections, Bedford County Board of Elections, Centre
County Board of Elections, Columbia County Board of
Elections, Fayette County Board of Elections, Indiana County
Board of Elections, Lackawanna County Board of Elections,
Lebanon County Board of Elections, Montour County Board
of Elections, Northumberland County Board of Elections,
Venango County Board of Elections.
Nathan A. Morgan, Beaver, PA, for Defendant Beaver County
Board of Elections.
Christine D. Steere, Deasey, Mahoney & Valentini, Ltd.,
Media, PA, for Defendant Berks County Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst Calland Clements and Zomnir, PC,
Pittsburgh, PA, Elizabeth A. Dupuis, Babst Calland, State
College, PA, Nathan W. Karn, Evey Black Attorneys LLC,
Hollidaysburg, PA, for Defendant Blair County Board of
Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Pro Hac Vice,
Peter V. Keays, Robert Wiygul, Pro Hac Vice, Hangley
Aronchick Segal Pudlin & Schiller, Philadelphia, PA, Joseph
J. Khan, County of Bucks, Doylestown, PA, for Defendant
Bucks County Board of Elections.
William Gleason Barbin, Cambria County Solicitor's Office,
Ebensburg, PA, for Defendant Cambria County Board of
Elections.
Gerard Joseph Geiger, Pro Hac Vice, Newman Williams,
Stroudsburg, PA, for Defendant Carbon County Board of
Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Pro Hac Vice,
Robert Wiygul, Pro Hac Vice, Hangley Aronchick Segal
Pudlin & Schiller, Philadelphia, PA, for Defendant Chester
County Board of Elections.
Christopher P. Gabriel, Carfardi Ferguson Wyrick Weis +
Gabriel, Sewickley, PA, for Defendant Clarion County Board
of Elections.
Frank A. Blum, III, Jefferson Hills, PA, for Defendant
Clearfield County Board of Elections.
Keith A. Button, Shafer Law Firm, Meadville, PA, for
Defendant Crawford County Board of Elections.

Keith O. Brenneman, Law Office of Keith O. Brenneman,
P.C., Mechanicsburg, PA, for Defendant Cumberland County
Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst Calland Clements and Zomnir, PC,
Pittsburgh, PA, Elizabeth A. Dupuis, Babst Calland, State
College, PA, Joseph A. Curcillo, III, Dauphin County,
Harrisburg, PA, for Defendant Dauphin County Board of
Elections.
Edward D. Rogers, Pro Hac Vice, Elizabeth Wingfield, Pro
Hac Vice, Kahlil Williams, Pro Hac Vice, David S. Fryman,
Ballard, Spahr, Andrews & Ingersoll, Terence Grugan, Pro
Hac Vice, Ballard Spahr, Philadelphia, PA, for Defendant
Delaware County Board of Elections.
Thomas S. Talarico, Talarico & Niebauer, Erie, PA, for
Defendant Erie County Board of Elections.
Andrew W. Norfleet, Frank J. Lavery, Jr., Stephen B.
Edwards, Lavery Law, Harrisburg, PA, for Defendants
Franklin County Board of Elections, Perry County Board of
Elections.
Robert Eugene Grimm, Robert Eugene Grimm Attorney,
Smithfield, PA, for Defendant Greene County Board of
Elections.
Peter M. McManamon, Pro Hac Vice, Gill, McManamon
& Ghaner, Huntingdon, PA, Steven B. Silverman, Molly E.
Meacham, Sean R. Keegan, Andrew Degory, Babst Calland
Clements and Zomnir, PC, Pittsburgh, PA, Elizabeth A.
Dupuis, Babst Calland, State College, PA, for Defendant
Huntingdon County Board of Elections.
C.J. Zwick, Zwick & Zwick LLP, DuBois, PA, Gregory D.
Sobol, Brookville, PA, for Defendant Jefferson County Board
of Elections.
Donald Zagurskie, Pro Hac Vice, Johnston & Zagurskie, PC,
Mifflin, PA, for Defendant Juniata County Board of Elections.
Christina L. Hausner, Pro Hac Vice, County of Lancaster,
Lancaster, PA, for Defendant Lancaster County Board of
Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst Calland Clements and Zomnir, PC,
Pittsburgh, PA, Thomas W. Leslie, New Castle, PA, Elizabeth

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1427 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 64 Document 58-5

2

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

A. Dupuis, Babst Calland, State College, PA, for Defendant
Lawrence County Board of Elections.
Thomas M. Caffrey, Pro Hac Vice, PO BOX A, Coplay,
PA, Sarah Mae Murray, Pro Hac Vice, County of Lehigh,
Allentown, PA, for Defendant Lehigh County Board of
Elections.

Thomas R. Shaffer, Glassmire & Shaffer Law Offices,
Coudersport, PA, for Defendant Potter County Board of
Elections.
Michael P. Barbera, Barbera, Melvin, Svonavec & Sperlazza
LLP, Somerset, PA, for Defendant Somerset County Board of
Elections.

Lawrence J. Moran, Jr., Matthew J. Carmody, Joyce,
Carmody & Moran, P.C., Regina M. Blewitt, Joyce Carmody
Moran, Pittston, PA, for Defendant Luzerne County Board of
Elections.

Kenneth R. Levitzky, Kenneth R. Levitzky, Esquire,
Dushore, PA, for Defendants Sullivan County Board of
Elections, Wyoming County Board of Elections.

Joseph D. Smith, McCormick Law Firm, Williamsport, PA,
for Defendant Lycoming County Board of Elections.

Robert Gawlas, Robert Schaub, Rosenn Jenkins & Greenwald
LLP, Wilkes-Barre, PA, for Defendant Susquehanna County
Board of Elections.

Anthony V. Clarke, The Clarke Firm, Bradford, PA, for
Defendant Mckean County Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Babst, Calland, Clements and Zomnir, P.C., Pittsburgh, PA,
William J. Madden, Solicitor, Mercer County, Sharon, PA,
Elizabeth A. Dupuis, Babst Calland, State College, PA, for
Defendant Mercer County Board of Elections.
Gerard Joseph Geiger, Newman Williams, Stroudsburg, PA,
for Defendants Monroe County Board of Elections, Pike
County Board of Elections, Schuylkill County Board of
Elections, Snyder County Board of Elections, Wayne County
Board of Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Pro Hac Vice,
Robert Wiygul, Pro Hac Vice, Hangley Aronchick Segal
Pudlin & Schiller, Philadelphia, PA, Maureen Calder, Pro Hac
Vice, Montgomery County Solicitor's Office, Norristown, PA,
for Defendant Montgomery County Board of Elections.
Brian Taylor, Pro Hac Vice, Richard E. Santee, Pro Hac Vice,
County of Northampton, Easton, PA, Timothy P. Brennan, Pro
Hac Vice, County of Northampton, PA, PA, for Defendant
Northampton County Board of Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Robert Wiygul,
Pro Hac Vice, Hangley Aronchick Segal Pudlin & Schiller,
Zachary Strassburger, City of Philadelphia Law Department,
Philadelphia, PA, for Defendant Philadelphia County Board
of Elections.

Christopher P. Gabriel, Carfardi Ferguson Wyrick Weis +
Gabriel, Sewickley, PA, Raymond E. Ginn, Jr., Pro Hac Vice,
Ginn & Vickery, P.C., Wellsboro, PA, for Defendant Tioga
County Board of Elections.
Steven B. Silverman, Sean R. Keegan, Babst, Calland,
Clements and Zomnir, P.C., Pittsburgh, PA, Allen P. Page,
McNerney, Page, Vanderlin & Hall, Williamsport, PA, for
Defendant Union County Board of Elections.
Nathaniel Justus Schmidt, Schmidt Law Firm, Warren, PA,
for Defendant Warren County Board of Elections.
Robert J. Grimm, Swartz Campbell, Ryan Michael Joyce,
Swartz Campbell, LLC, Pittsburgh, PA, for Defendant
Washington County Board of Elections.
David A. Regoli, New Kensington, PA, for Defendant
Westmoreland County Board of Elections.
Michelle Pokrifka, Pro Hac Vice, York County Solicitor's
Office, York, PA, Steven B. Silverman, Molly E. Meacham,
Sean R. Keegan, Andrew Degory, Babst Calland Clements
and Zomnir, PC, Pittsburgh, PA, Elizabeth A. Dupuis, Babst
Calland, State College, PA, for Defendant York County Board
of Elections.
Adriel I. Cepeda Derieux, Pro Hac Vice, Dale E. Ho, Pro
Hac Vice, Sophia Lin Lakin, Pro Hac Vice, American Civil
Liberties Union Foundation, Christopher R. Noyes, Pro Hac
Vice, Eleanor Davis, Pro Hac Vice, Jared Vasconcellos
Grubow, Pro Hac Vice, Lori A. Martin, Wilmer Cutler
Pickering Hale and Dorr LLP, New York, NY, Benjamin
David Geffen, Mary McKenzie, Public Interest Law Center,
Philadelphia, PA, David P. Yin, Pro Hac Vice, Sarah E.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1428 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 64 Document 58-5

3

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Brannon, Pro Hac Vice, American Civil Liberties Union
Foundation, John Michael Powers, Pro Hac Vice, Lawyers'
Committee for Civil Rights Under Law, Washington, DC,
Jason H. Liss, Pro Hac Vice, Boston, MA, Samantha Picans,
Pro Hac Vice, Wilmer Cutler Pickering Hale and Dorr LLP,
Denver, CO, Witold J. Walczak, Aclf of PA, Pittsburgh, PA,
for Defendant NAACP Pennsylvania State Conference.
Adriel I. Cepeda Derieux, Pro Hac Vice, Dale E. Ho, Pro
Hac Vice, Sophia Lin Lakin, Pro Hac Vice, American Civil
Liberties Union Foundation, Christopher R. Noyes, Pro Hac
Vice, Eleanor Davis, Jared Vasconcellos Grubow, Pro Hac
Vice, Lori A. Martin, Wilmer Cutler Pickering Hale and
Dorr LLP, New York, NY, Benjamin David Geffen, Mary
McKenzie, Public Interest Law Center, Philadelphia, PA,
David P. Yin, Pro Hac Vice, Sarah E. Brannon, Pro Hac Vice,
American Civil Liberties Union Foundation, John Michael
Powers, Pro Hac Vice, Lawyers' Committee for Civil Rights
Under Law, Washington, DC, Jason H. Liss, Pro Hac Vice,
Boston, MA, Samantha Picans, Pro Hac Vice, Wilmer Cutler
Pickering Hale and Dorr LLP, Denver, CO, Witold J. Walczak,
Aclf of PA, Pittsburgh, PA, for Defendant Common Cause
Pennsylvania.
Adriel I. Cepeda Derieux, Dale E. Ho, Sophia Lin Lakin,
American Civil Liberties Union Foundation, Christopher R.
Noyes, Eleanor Davis, Jared Vasconcellos Grubow, Lori A.
Martin, Wilmer Cutler Pickering Hale and Dorr LLP, New
York, NY, Benjamin David Geffen, Mary McKenzie, Public
Interest Law Center, Philadelphia, PA, David P. Yin, Pro
Hac Vice, Sarah E. Brannon, American Civil Liberties Union
Foundation, John Michael Powers, Pro Hac Vice, Lawyers'
Committee for Civil Rights Under Law, Washington, DC,
Jason H. Liss, Boston, MA, Samantha Picans, Wilmer Cutler
Pickering Hale and Dorr LLP, Denver, CO, Witold J. Walczak,
Aclf of PA, Pittsburgh, PA, for Defendants League of Women
Voters of Pennsylvania, Patricia Demarco, Danielle Graham
Robinson, Kathleen Wise.

OPINION
J. Nicholas Ranjan, United States District Judge
*1 Plaintiffs in this case are President Trump's reelection
campaign, the Republican National Committee, and several
other Republican congressional candidates and electors.
They originally filed this suit, alleging federal and state
constitutional violations stemming from Pennsylvania's

implementation of a mail-in voting plan for the upcoming
general election.
Since then, the Pennsylvania Supreme Court issued a decision
involving similar claims, which substantially narrowed the
focus of this case. And Secretary of the Commonwealth,
Kathy Boockvar, issued additional election “guidance,”
which further narrowed certain of the claims.
Therefore, as this case presently stands, only three claims
remain. First, whether the use of so-called “drop boxes”1 for
mail-in ballots is unconstitutional, given the lack of guidance
or mandates that those drop boxes have security guards to man
them. Second, whether the Secretary's guidance as to mailin ballots—specifically, her guidance that county election
boards should not reject mail-in ballots where the voter's
signature does not match the one on file—is unconstitutional.
Third, whether Pennsylvania's restriction that poll watchers
be residents in the county for which they are assigned, as
applied to the facts of this case, is unconstitutional.
1

“Drop boxes” are receptacles similar to U.S. Postal
Service mailboxes. They are made of metal, and have a
locking mechanism, storage compartment, and an insert
or slot into which a voter can insert a ballot. See generally
[ECF 549-9].

In order to present these claims to the Court on a
complete record, the parties engaged in extensive fact and
expert discovery, and have filed cross-motions for summary
judgment. No party has raised a genuine dispute of material
fact that would require a trial, and the Court has found none.
As such, the parties’ cross-motions for summary judgment are
ready for disposition.
After a careful review of the parties’ submissions and the
extensive evidentiary record, the Court will enter judgment in
favor of Defendants on all of Plaintiffs’ federal-constitutional
claims, decline to exercise supplemental jurisdiction over the
state-constitutional claims, and dismiss this case. This is so
for two main reasons.
First, the Court concludes that Plaintiffs lack Article III
standing to pursue their claims. Standing, of course, is a
necessary requirement to cross the threshold into federal
court. Federal courts adjudicate cases and controversies,
where a plaintiff's injury is concrete and particularized. Here,
however, Plaintiffs have not presented a concrete injury to
warrant federal-court review. All of Plaintiffs’ remaining
claims have the same theory of injury—one of “vote dilution.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1429 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 64 Document 58-5

4

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Plaintiffs fear that absent implementation of the security
measures that they seek (guards by drop boxes, signature
comparison of mail-in ballots, and poll watchers), there is a
risk of voter fraud by other voters. If another person engages
in voter fraud, Plaintiffs assert that their own lawfully cast
vote will, by comparison, count for less, or be diluted.
*2 The problem with this theory of harm is that it is
speculative, and thus Plaintiffs’ injury is not “concrete”—
a critical element to have standing in federal court. While
Plaintiffs may not need to prove actual voter fraud, they must
at least prove that such fraud is “certainly impending.” They
haven't met that burden. At most, they have pieced together a
sequence of uncertain assumptions: (1) they assume potential
fraudsters may attempt to commit election fraud through the
use of drop boxes or forged ballots, or due to a potential
shortage of poll watchers; (2) they assume the numerous
election-security measures used by county election officials
may not work; and (3) they assume their own security
measures may have prevented that fraud.
All of these assumptions could end up being true, and these
events could theoretically happen. But so could many things.
The relevant question here is: are they “certainly impending”?
At least based on the evidence presented, the answer to that is
“no.” And that is the legal standard that Plaintiffs must meet.
As the Supreme Court has held, this Court cannot “endorse
standing theories that rest on speculation about the decisions
of independent actors.” See Clapper v. Amnesty Int'l USA, 568
U.S. 398, 414, 133 S.Ct. 1138, 185 L.Ed.2d 264 (2013).
Second, even if Plaintiffs had standing, their claims fail on
the merits. Plaintiffs essentially ask this Court to secondguess the judgment of the Pennsylvania General Assembly
and election officials, who are experts in creating and
implementing an election plan. Perhaps Plaintiffs are right
that guards should be placed near drop boxes, signatureanalysis experts should examine every mail-in ballot, poll
watchers should be able to man any poll regardless of
location, and other security improvements should be made.
But the job of an unelected federal judge isn't to suggest
election improvements, especially when those improvements
contradict the reasoned judgment of democratically elected
officials. See Andino v. Middleton, ––– U.S. ––––, ––– S.Ct.
––––, ––––, ––– L.Ed.2d ––––, 2020 WL 5887393, at *1 (Oct.
5, 2020) (Kavanaugh, J. concurring) (state legislatures should
not be subject to “second-guessing by an unelected federal
judiciary,” which is “not accountable to the people”) (cleaned
up).

Put differently, “[f]ederal judges can have a lot of power—
especially when issuing injunctions. And sometimes we may
even have a good idea or two. But the Constitution sets out our
sphere of decision-making, and that sphere does not extend
to second-guessing and interfering with a State's reasonable,
nondiscriminatory election rules.” New Georgia Project v.
Raffensperger, ––– F.3d ––––, ––––, 2020 WL 5877588, at
*4 (11th Cir. Oct. 2, 2020).
As discussed below, the Court finds that the election
regulations put in place by the General Assembly and
implemented by Defendants do not significantly burden any
right to vote. They are rational. They further important state
interests. They align with the Commonwealth's elaborate
election-security measures. They do not run afoul of the
United States Constitution. They will not otherwise be
second-guessed by this Court.

BACKGROUND
I. Procedural Background
A. Plaintiffs’ original claims.
On June 29, 2020, Plaintiffs filed their original complaint
in this case against Defendants, who are the Secretary of
the Commonwealth and the 67 county boards of elections.
[ECF 4]. With their lawsuit, Plaintiffs challenged a number
of Pennsylvania's procedures with respect to mail-in voting
—in particular, the use of drop boxes and the counting of
mail-in ballots that contained certain procedural defects. See
[id.]. Shortly after filing their original complaint, Plaintiffs
moved for expedited discovery and an expedited declaratoryjudgment hearing. [ECF 6]. Defendants opposed the motion.
The Court partially granted the motion, scheduled a speedy
hearing, and ordered expedited discovery before that hearing.
[ECF 123; ECF 124].
*3 After Plaintiffs filed the original complaint, many nonparties sought to intervene in the action, including several
organizations.2 The Court granted all intervention motions.
[ECF 309].
2

Intervenors include the Pennsylvania State Democratic
Party, the League of Women Voters, the NAACP
Pennsylvania State Conference, Common Cause
Pennsylvania, Citizens for Pennsylvania's Future, the
Sierra Club, the Pennsylvania Alliance for Retired

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1430 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 64 Document 58-5

5

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680
Americans, and several affiliated individuals of these
organizations.

Defendants and Intervenors moved to dismiss the original
complaint. In response, Plaintiffs filed an amended complaint.
[ECF 234]. The amended complaint maintained the gist of
the original, but added two new counts and made a variety
of other drafting changes. See [ECF 242]. Defendants and
Intervenors moved to dismiss the first amended complaint,
too, primarily asking the Court to abstain and stay the case.
Plaintiffs’ first amended complaint asserted nine separate
counts, but they could be sorted into three overarching
categories.

1. Claims alleging vote dilution due to unlawful ballot
collection and counting procedures.
The first category covered claims related to allegedly
unlawful procedures implemented by some Defendants for
the collection and counting of mail-in and absentee ballots.
Those included claims related to (1) Defendants’ uneven use
of drop boxes and other satellite ballot-collection sites, (2)
procedures for verifying the qualifications of voters applying
in person for mail-in or absentee ballots, and (3) rules for
counting non-compliant ballots (such as ballots submitted
without a secrecy envelope, without an elector declaration, or
that contained stray marks on the envelope).
In Count I, Plaintiffs alleged violations of the Elections
Clause and the related Presidential Electors Clause of the
U.S. Constitution. [ECF 234, ¶¶ 193-205]. Plaintiffs asserted
that, under these provisions, only the state legislature may set
the time, place, and manner of congressional elections and
determine how the state chooses electors for the presidency.
[Id. at ¶ 196].
In support of this claim, Plaintiffs alleged that Secretary
Boockvar's guidance concerning the use of mail-in ballot
drop boxes, whether county boards of elections must
independently verify mail-in ballot applications, and the
counting of non-compliant mail-in ballots, was an executive
overreach—in that the Secretary's guidance allegedly violated
certain provisions of the Election Code enacted by the
Pennsylvania General Assembly. [Id. at ¶ 201]. Plaintiffs also
claimed that the Secretary's “unlawful guidance” increased
the risk of fraudulent or unlawful voting and infringed on
the right to vote, which, they said, amounted to additional

violations of the 1st and 14th Amendments to the U.S.
Constitution. [Id. at ¶¶ 202-03].
In Count II, Plaintiffs alleged a violation of the EqualProtection Clause under the 14th Amendment. [Id. at ¶¶
206-15]. Plaintiffs asserted that the implementation of the
foregoing (i.e., mail-in ballot drop boxes, the verification of
mail-in ballot applications, and the counting of non-compliant
ballots) was different in different counties, thereby treating
voters across the state in an unequal fashion. [Id. at ¶¶
211-13].
*4 In Count III, Plaintiffs asserted a violation of the
Pennsylvania State Constitution. [Id. at ¶¶ 216-22]. Plaintiffs
alleged that the same actions and conduct that comprised
Counts I and II also violated similar provisions of the
Pennsylvania Constitution. [Id. at ¶ 220].
Finally, in Counts VI and VII, Plaintiffs alleged that
Defendants violated provisions of the federal and state
constitutions by disregarding the Election Code's notice and
selection requirements applicable to “polling places.” [Id. at
¶¶ 237-52]. Plaintiffs alleged that drop boxes are “polling
places,” and thus subject to certain criteria for site selection
and the requirement that county election boards provide 20
days’ public notice. [Id. at ¶¶ 239-42]. Plaintiffs asserted that
Defendants’ failure to provide this notice or select appropriate
“polling places” in the primary election, if repeated in the
general election, would create the risk of voter fraud and vote
dilution. [Id. at ¶¶ 243-246].

2. Poll-watcher claims.
The second category of claims in the first amended complaint
consisted of challenges to the constitutionality of ElectionCode provisions related to poll watchers.
In Count IV, Plaintiffs alleged violations of the 1st and 14th
Amendments. These claims had both a facial and an asapplied component. [ECF 234, ¶ 230 (“On its face and as
applied to the 2020 General Election ...”) ].
First, Plaintiffs alleged that 25 P.S. § 2687 was facially
unconstitutional because it “arbitrarily and unreasonably”
limits poll watchers to serving only in their county of
residence and to monitoring only in-person voting at the
polling place on election day. [Id. at ¶ 226]. Second, Plaintiffs
alleged that the same provision was unconstitutional as

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1431 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 64 Document 58-5

6

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

applied in the context of Pennsylvania's new vote-by-mail
system, because these poll-watcher restrictions, combined
with insecure voting procedures, create unacceptable risks of
fraud and vote dilution. [Id. at ¶ 228]. Plaintiffs contended
that these limitations make it “functionally impracticable”
for candidates to ensure that they have poll watchers
present where ballots are deposited and collected, given the
widespread use of remote drop boxes and other satellite
collection sites. [Id.].
Count V was the same as Count IV, but alleged that the
same poll-watching restrictions violated the Pennsylvania
Constitution, too. [Id. at ¶ 234].

3. In-person voting claims.
The third category of claims consisted of challenges to the
procedures for allowing electors to vote in person after
requesting a mail-in ballot.
That is, in Counts VIII and IX, Plaintiffs asserted that the
Election Code permits an elector that has requested a mail-in
ballot to still vote in person so long as he remits his spoiled
ballot. [ECF 234, ¶¶ 253-267]. Plaintiffs asserted that during
the primary, some counties allowed such electors to vote in
person, while others did not, and they fear the same will
happen in the general election. [Id. at ¶¶ 255, 259]. Plaintiffs
also asserted that some counties allowed electors who had
voted by mail to vote in person, in violation of the Election
Code. [Id. at ¶¶ 257-58]. Plaintiffs alleged that this conduct
also violates the federal and state constitutional provisions
concerning the right to vote and equal protection. [Id. at ¶¶
261, 265].
B. The Court's decision to abstain.
*5 Upon consideration of Defendants’ and Intervenors’
motions to dismiss the first amended complaint, on August
23, 2020, the Court issued an opinion abstaining under R.R.
Comm'n of Tex. v. Pullman Co., 312 U.S. 496, 61 S.Ct. 643,
85 L.Ed. 971 (1941) and temporarily staying the case. [ECF
409, 410].
In doing so, the Court determined that the three requisite
prongs for Pullman abstention were met, and that the
discretionary considerations weighed in favor of abstention.
[ECF 409, p. 3 (“[Under Pullman, federal courts abstain] if
(1) doing so requires interpretation of ‘unsettled questions

of state law’; (2) permitting resolution of the unsettled statelaw questions by state courts would ‘obviate the need for,
or substantially narrow the scope of adjudication of the
constitutional claims’; and (3) an ‘erroneous construction of
state law would be disruptive of important state policies[.]’
” (citing Chez Sez III Corp. v. Township of Union, 945
F.2d 628, 631 (3d Cir. 1991))); id. at p. 30 (explaining
that after the three prongs of Pullman abstention are met,
the court must “make a discretionary determination of
whether abstention is appropriate given the particular facts
of this case,” which requires weighing “such factors as the
availability of an adequate state remedy, the length of time the
litigation has been pending, and the impact of delay on the
litigants.” (cleaned up)) ].
The Court found that abstaining under Pullman was
appropriate because of several unresolved ambiguities in
Pennsylvania's Election Code. Specifically, the Court found
that there were significant ambiguities as to whether the
Election Code (1) permitted delivery of ballots to locations
other than the county election board's headquarters, such
as drop boxes, (2) permitted counties to count ballots
that were not placed within the “secrecy envelope” (i.e.,
“naked ballots”), (3) considered drop boxes and other ballotcollection sites as “polling places,” as defined in the Election
Code, and (4) required counties to automatically verify ballot
applications for mail-in ballots (where the person applied
for the ballot in person), even if there was no “bona fide
objection” to the application. [ECF 409, pp. 17-23].
The Court explained that each of these ambiguities, if
settled, would significantly narrow—or even resolve—some
of Plaintiffs’ claims. As the Court explained, for example,
if a state court interpreted the Election Code to disallow
drop boxes, Plaintiffs would obtain their requested relief (i.e.,
no drop boxes); alternatively, if drop boxes were authorized
by the Election Code, then Plaintiffs’ allegations that drop
boxes were illegal would be eliminated, which would, in turn,
significantly affect the constitutional analysis of Plaintiffs’
claims. [Id. at pp. 25-28]. The same held true for “naked
ballots,” the breadth of coverage of “polling places,” and the
requisite verification for personal ballot applications.
The Court then explained that it was appropriate for it to
abstain until a state court could interpret the ambiguous
state law. [Id. at pp. 28-30]. The Court concluded that if it
interpreted the ambiguous state law, there was a sufficient
chance that a state court could disagree with the interpretation,
which would render this Court's interpretation not only

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1432 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 64 Document 58-5

7

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

advisory, but disruptive to state policies. The Court noted that
especially in the election context, states have considerable
discretion to implement their own policies without federal
intervention. Accordingly, because these were questions of
uninterpreted state law that were sufficiently ambiguous,
federalism and comity demanded that a state court, not this
Court, be the first interpreter.
*6 Finally, the Court explained that, despite the imminence
of the election, abstention was still proper. [Id. at pp.
30-33]. The Court noted that state-court litigation was already
pending that would resolve some of the statutory ambiguities
at issue. [Id. at p. 31]. Further, the Court highlighted three
courses Plaintiffs could immediately take to resolve the
statutory ambiguities: intervene in the pending state-court
litigation; file their own state-court case; or appeal this
Court's abstention decision to the Third Circuit, and then
seek certification of the unsettled state-law issues in the
Pennsylvania Supreme Court. [Id. at pp. 31-33].
Additionally, the Court explained that it would stay the entire
case, despite several of Plaintiffs’ claims not being subject
to Pullman abstention as they were not based on ambiguous
state law. [Id. at pp. 34-37]. That's because, in its discretion,
the Court determined it would be more efficient for this case
to progress as a single proceeding, rather than in piecemeal
fashion. [Id.]. However, the Court allowed any party to move
to lift the stay as to the few claims not subject to Pullman
abstention, if no state-court decision had been issued by
October 5, 2020. [Id.].
On August 28, 2020, five days after the Court abstained,
Plaintiffs moved to modify the Court's stay, and moved for
a preliminary injunction. [ECF 414]. Plaintiffs requested,
among other things, that the Court order Defendants to
segregate, and not pre-canvass or canvass, all ballots that
were returned in drop boxes, lacked a secrecy envelope, or
were delivered by a third party. [Id.]. Plaintiffs also requested
that the Court lift the stay by September 14, 2020, instead of
October 5, 2020. [Id.].
The Court denied Plaintiffs’ motion for preliminary injunctive
relief, finding that Plaintiffs failed to show they would
be irreparably harmed. [ECF 444; ECF 445]. The Court
also declined to move up the date when the stay would
be lifted. [Id.]. The Court noted that, at the request of
Secretary Boockvar, the Pennsylvania Supreme Court had
already exercised its extraordinary jurisdiction to consider
five discrete issues and clarify Pennsylvania law in time for

the general election. [Id. at p. 1]. Since that case appeared
to be on track, the Court denied Plaintiffs’ motion without
prejudice, and the Court's abstention opinion and order
remained in effect.
C. The Pennsylvania Supreme Court's decision.
On September 17, 2020, the Pennsylvania Supreme Court
issued its decision in Pennsylvania Democratic Party v.
Boockvar, ––– Pa. ––––, ––– A.3d ––––, 2020 WL 5554644
(Sept. 17, 2020). The court clarified three issues of state
election law that are directly relevant to this case.

1. Counties are permitted under the Election Code to
establish alternate ballot-collection sites beyond just their
main county office locations.
The Pennsylvania Supreme Court first considered whether the
Election Code allowed a Pennsylvania voter to deliver his
or her mail-in ballot in person to a location other than the
established office address of the county's board of election.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *8. The
court further considered the means by which county boards
of election could accept hand-delivered mail-in ballots. Id.
Consistent with this Court's abstention opinion, the court
found that “the parties’ competing interpretations of the
Election Code on [these questions] are reasonable, rendering
the Code ambiguous” on these questions. Id. After applying
traditional principles of statutory interpretation, the court held
that “the Election Code should be interpreted to allow county
boards of election to accept hand-delivered mail-in ballots
at locations other than their office addresses including dropboxes.” Id. at.––––, 2020 WL 5554644, at *9. The court
reached this conclusion due to “the clear legislative intent
underlying Act 77 ... to provide electors with options to vote
outside of traditional polling places.” Id.
*7 The respondents in that case further argued that this
interpretation would cause county boards of election to
“employ myriad systems to accept hand-delivered mail-in
ballots,” which would “be unconstitutionally disparate from
one another in so much as some systems will offer more legal
protections to voters than others will provide” and violate the
Equal-Protection Clause Id. The court rejected this argument.
It found that “the exact manner in which each county board
of election will accept these votes is entirely unknown at this
point; thus, we have no metric by which to measure whether

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1433 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 64 Document 58-5

8

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

any one system offers more legal protection than another,
making an equal protection analysis impossible at this time.”
Id.

2. Ballots lacking inner secrecy envelopes should not be
counted.
The court next considered whether the boards of elections
“must ‘clothe and count naked ballots,’ i.e., place ballots
that were returned without the secrecy envelope into a
proper envelope and count them, rather than invalidate them.”
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *21. The
court concluded that they should not.
The court held that “the Legislature intended for the secrecy
envelope provision [in the Election Code] to be mandatory.”
Id. at ––––, 2020 WL 5554644, at *24. In other words,
the relevant provisions “make clear the General Assembly's
intention that, during the collection and canvassing processes,
when the outer envelope in which the ballot arrived is
unsealed and the sealed ballot removed, it should not be
readily apparent who the elector is, with what party he or
she affiliates, or for whom the elector has voted.” Id. The
secrecy envelope “properly unmarked and sealed ensures that
result,” and “[w]hatever the wisdom of the requirement, the
command that the mail-in elector utilize the secrecy envelope
and leave it unblemished by identifying information is neither
ambiguous nor unreasonable.” Id.
As a result, the court ultimately concluded, “a mail-ballot that
is not enclosed in the statutorily-mandated secrecy envelope
must be disqualified.” Id. at ––––, 2020 WL 5554644, at *26

3. Pennsylvania's county-residency requirement for poll
watchers is constitutional.
The final relevant issue the court considered was whether
the poll-watcher residency requirement found in 25 P.S.
§ 2687(b) violates state or federal constitutional rights.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *26.
Relying on Republican Party of Pennsylvania v. Cortés, 218
F. Supp. 3d 396 (E.D. Pa. 2016), the court concluded that
the poll-watcher residency provision “impose[d] no burden
on one's constitutional right to vote and, accordingly, requires
only a showing that a rational basis exists to be upheld.” Id.
at ––––, 2020 WL 5554644, at *30. The court found rationalbasis review was appropriate for three reasons.

First, “there is no individual constitutional right to serve as
a poll watcher; rather, the right to do so is conferred by
statute.” Id. (citation omitted). Second, “poll watching is not
incidental to the right of free association and, thus, has no
distinct First Amendment protection.” Id. (cleaned up). Third,
“poll watching does not implicate core political speech.” Id.
(citation omitted).
The court went on to find that there was a “clear rational
basis for the county poll watcher residency requirement[.]” Id.
That is, given “Pennsylvania has envisioned a county-based
scheme for managing elections within the Commonwealth,”
it is “reasonable that the Legislature would require poll
watchers, who serve within the various counties of the state,
to be residents of the counties in which they serve.” Id.
In upholding the constitutionality of the “county poll watcher
residency requirement,” the court rejected the claim that “poll
watchers are vital to protect against voter fraud and that
because of the distribution of voters throughout Pennsylvania,
the residency requirement makes it difficult to identify poll
watchers in all precincts.” Id. The court concluded that
the claims of “heightened election fraud involving mailin voting” were “unsubstantiated” and “specifically belied
by the Act 35 report issued by [Secretary Boockvar] on
August 1, 2020.” Id. Moreover, the court held that the
“speculative claim that it is ‘difficult’ for both parties to
fill poll watcher positions in every precinct, even if true, is
insufficient to transform the Commonwealth's uniform and
reasonable regulation requiring that poll watchers be residents
of the counties they serve into a non-rational policy choice.”
Id.
*8 Based on the foregoing, the court declared “that the pollwatcher residency requirement does not violate the state or
federal constitutions.” Id. at ––––, 2020 WL 5554644, at *31.
D. Plaintiffs’ notice of remaining claims.
Following the Pennsylvania Supreme Court's decision, this
Court lifted the stay it had imposed pursuant to the Pullman
abstention doctrine and ordered the parties to identify the
remaining viable claims and defenses in the case. [ECF 447].
In their notice, Plaintiffs took the position that nearly all
their claims remained viable, with a few discrete exceptions.
Plaintiffs conceded that their “federal and state constitutional
claims of voter dilution solely on the basis that drop boxes
and other collection sites are not statutorily authorized by the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1434 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 64 Document 58-5

9

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Pennsylvania Election Code [were] no longer viable.” [ECF
448, p. 4]. They also stated that their “facial challenge to
the county residency requirement under 25 P.S. § 2687 is no
longer a viable claim.” [Id. at p. 10]. Plaintiffs also moved
for leave to amend their complaint a second time to add new
allegations and a new claim relating to Secretary Boockvar's
recent signature-comparison guidance. [ECF 451].
Defendants and Intervenors, for their part, suggested that
Plaintiffs’ claims had been substantially narrowed, if not
outright mooted, by the Pennsylvania Supreme Court's
decision, and reminded the Court that their arguments for
dismissal remained outstanding.
E. The Court's September 23, 2020, memorandum
orders.
In response to the notices filed by the parties and Plaintiffs’
motion for leave to amend the first amended complaint, the
Court issued an order granting Plaintiffs’ motion, narrowing
the scope of the lawsuit, and establishing the procedure for
resolving the remaining claims. [ECF 459].
As to Plaintiffs’ proposed amendment to their complaint, the
Court found that the new claim and allegations were relatively
narrow, and thus amendment wouldn't prejudice Defendants
and Intervenors. [Id. at pp. 3-4]. As a result, the Court granted
the motion. [Id. at p. 4].
The Court, however, did inform the parties that it would
“continue to abstain under Pullman as to Plaintiffs’ claim
pertaining to the notice of drop box locations and, more
generally, whether the “polling place” requirements under
the Election Code apply to drop-box locations.” [Id. at p.
5]. This was so because those claims involve still-unsettled
issues of state law. The Court explained that the “fact that
the Pennsylvania Supreme Court did not address this issue
in its recent decision is immaterial” because the “propriety
of Pullman abstention does not depend on the existence of
parallel state-court proceedings.” [Id. (citing Stoe v. Flaherty,
436 F.3d 209, 213 (3d Cir. 2006)) ]. Moreover, Plaintiffs had
several other avenues to pursue prompt interpretation of state
law after this Court abstained. [Id. at p. 6].
The Court also informed the parties, for similar reasons,
that it would continue to abstain with respect to Plaintiffs’
claims regarding Secretary Boockvar's guidance that personal
applications for mail-in ballots shall be accepted absent a
“bona fide objection.” [ECF 460].

The Court found that “no Article III ‘case or controversy’
remain[ed] with respect to the claims on which the
Pennsylvania Supreme Court effectively ruled in Plaintiffs’
favor on state-law grounds (e.g., illegality of third-party ballot
delivery; excluding ‘naked ballots’ submitted without innersecrecy envelopes).” [ECF 459, p. 6]. Because there was
“no reason to believe Defendants plan to violate what they
themselves now agree the law requires,” the Court held that
Plaintiffs’ claims were premature and speculative. [Id. at p. 7].
The Court therefore dismissed those claims as falling outside
of its Article III power to adjudicate. [Id. (citations omitted) ].
*9 To resolve the remaining claims, the Court directed
the parties to file cross-motions for summary judgment
presenting all arguments for dismissal or judgment under
Federal Rule of Civil Procedure 56. [Id. at pp. 8-10]. Before
briefing on those motions, the Court authorized additional
expedited discovery. [Id. at pp. 4-5]. The parties completed
discovery and timely filed their motions; they identified no
material disputes of fact; and therefore, the motions are now
fully briefed and ready for disposition.
F. The claims now at issue.
Based on the Pennsylvania Supreme Court's prior ruling,
this Court's prior decisions, Plaintiffs’ nine-count Second
Amended Complaint, and recent guidance issued by Secretary
Boockvar, the claims remaining in this case are narrow and
substantially different than those asserted at the outset of the
case.
Drop Boxes (Counts I-III). Plaintiffs still advance a claim
that drop boxes are unconstitutional, but in a different way.
Now that the Pennsylvania Supreme Court has expressly
held that drop boxes are authorized under the Election Code,
Plaintiffs now assert that the use of “unmanned” drop boxes
is unconstitutional under the federal and state constitutions,
for reasons discussed in more detail below.
Signature Comparison (Counts I-III). Plaintiffs’ newly
added claim relates to signature comparison. Secretary
Boockvar's September 2020 guidance informs the county
boards that they are not to engage in a signature analysis of
mail-in ballots and applications, and they must count those
ballots, even if the signature on the ballot does not match the
voter's signature on file. Plaintiffs assert that this guidance is
unconstitutional under the federal and state constitutions.
Poll Watching (Counts IV, V). The Pennsylvania Supreme
Court already declared that Pennsylvania's county-residency

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1435 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 64 Document 58-5

10

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

requirement for poll watchers is facially constitutional.
Plaintiffs now only assert that the requirement, as applied, is
unconstitutional under the federal and state constitutions.
The counts that remain in the Second Amended Complaint,
but which are not at issue, are the counts related to where
poll watchers can be located. That is implicated mostly by
Counts VI and VII, and by certain allegations in Counts IV
and V. The Court continues to abstain from reaching that
issue. Plaintiffs have filed a separate state lawsuit that would
appear to address many of those issues, in any event. [ECF
549-22; ECF 573-1]. Counts VIII and IX concern challenges
related to voters that have requested mail-in ballots, but that
instead seek to vote in person. The Secretary issued recent
guidance, effectively mooting those claims, and, based on
Plaintiffs’ positions taken in the course of this litigation, the
Court deems Plaintiffs to have withdrawn Counts VIII and IX.
[ECF 509, p. 15 n.4 (“[I]n the September 28 guidance memo,
the Secretary corrected [her] earlier guidance to conform
to the Election Code and states that any mail-in voter who
spoils his/her ballot and the accompanying envelopes and
signs a declaration that they did not vote by mail-in ballot
will be allowed to vote a regular ballot. Therefore, Plaintiffs
agree to withdraw this claim from those that still are being
pursued.”) ].
II. Factual Background
A. Pennsylvania's Election Code, and the adoption of
Act 77.
1. The county-based election system.
Pennsylvania's Election Code, first enacted in 1937,
established a county-based system for administering
elections. See 25 P.S. § 2641(a) (“There shall be a
county board of elections in and for each county of this
Commonwealth, which shall have jurisdiction over the
conduct of primaries and elections in such county, in
accordance with the provisions of [the Election Code].”).
The Election Code vests county boards of elections with
discretion to conduct elections and implement procedures
intended to ensure the honesty, efficiency, and uniformity of
Pennsylvania's elections. Id. §§ 2641(a), 2642(g).

2. The adoption of Act 77.

*10 On October 31, 2019, the Pennsylvania General
Assembly passed “Act 77,” a bipartisan reform of
Pennsylvania's Election Code. See [ECF 461, ¶¶ 91]; 2019 Pa.
Legis. Serv. Act 2019-77 (S.B. 421).
Among other things, by passing Act 77, Pennsylvania joined
34 other states in authorizing “no excuse” mail-in voting
by all qualified electors. See [ECF 461, ¶¶ 92]; 25 P.S. §§
3150.11-3150.17; [ECF 549-11, p. 5 (“The largest number
of states (34), practice no-excuse mail-in voting, allowing
any persons to vote by mail regardless of whether they have
a reason or whether they will be out of their jurisdiction
on Election Day.”) ]. Previously, a voter could only cast an
“absentee” ballot if certain criteria were met, such as that the
voter would be away from the election district on election day.
See 1998 Pa. Legis. Serv. Act. 1998-18 (H.B. 1760), § 14.
Like the previous absentee voting system, Pennsylvania's
mail-in voting system requires voters to “opt-in” by
requesting a ballot from either the Secretary or the voter's
county board of elections. See 25 P.S. §§ 3146.2(a),
3150.12(a). When requesting a ballot, the voter must provide,
among other things, his or her name, date of birth, voting
district, length of time residing in the voting district, and
party choice for primary elections. See 25 P.S. §§ 3146.2(b),
3150.12(b). A voter must also provide proof of identification;
namely, either a driver's license number or, in the case of
a voter who does not have a driver's license, the last four
digits of the voter's Social Security number, or, in the case
of a voter who has neither a driver's license nor a Social
Security number, another form of approved identification. 25
P.S. § 2602(z.5)(3). In this respect, Pennsylvania differs from
states that automatically mail each registered voter a ballot—
a practice known as “universal mail-in voting.” [ECF 549-11,
p. 6] (“[N]ine states conduct universal vote-by-mail elections
in which the state (or a local entity, such [as] a county or
municipality) mails all registered voters a ballot before each
election without voters’ [sic] having to request them.”).

3. The COVID-19 pandemic.
Since early 2020, the United States, and Pennsylvania,
have been engulfed in a viral pandemic of unprecedented
scope and scale. [ECF 549-8, ¶ 31]. In that time,
COVID-19 has spread to every corner of the globe,
including Pennsylvania, and jeopardized the safety and
health of many people. [Id. at ¶¶ 31, 38-39, 54-55, 66].
As of this date, more than 200,000 Americans have died,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1436 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 64 Document 58-5

11

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

including more than 8,000 Pennsylvanians. See Covid in the
U.S.: Latest Map and Case Count, The New York Times,
available at https://www nytimes.com/interactive/2020/us/
coronavirus-us-cases html (last visited Oct. 10, 2020);
COVID-19 Data for Pennsylvania, Pennsylvania Department
of Health, available at https://www.health.pa.gov/topics/
disease/coronavirus/Pages/Cases.aspx (last visited Oct. 10,
2020).
There have been many safety precautions that Pennsylvanians
have been either required or urged to take, such as limiting
participation in large gatherings, maintaining social distance,
and wearing face coverings. [ECF 549-8, ¶¶ 58, 63-65]. The
threat of COVID-19 is likely to persist through the November
general election. [Id. at ¶¶ 53-56, 66-68].
B. Facts relevant to drop boxes.
*11 Pennsylvania's county-based election system vests
county boards of elections with “jurisdiction over the conduct
of primaries and elections in such county, in accordance with
the provisions” of the Election Code. 25 P.S. § 2641(a).
The Election Code further empowers the county boards to
“make and issue such rules, regulations and instructions, not
inconsistent with law, as they may deem necessary for the
guidance of voting machine custodians, elections officers and
electors.” Id. at § 2642(f). The counties are also charged with
the responsibility to “purchase, preserve, store and maintain
primary and election equipment of all kinds, including voting
booths, ballot boxes and voting machines.” Id. at § 2642(c).
As noted above, in Pennsylvania Democratic Party v.
Boockvar, the Pennsylvania Supreme Court interpreted the
Election Code, which allows for mail-in and absentee ballots
to be returned to the “county board of election,” to “permit[ ]
county boards of election to accept hand-delivered mail-in
ballots at locations other than their office addresses including
drop-boxes.” ––– A.3d at ––––, 2020 WL 5554644, at *10.
Thus, it is now settled that the Election Code permits (but
does not require) counties to authorize drop boxes and other
satellite-collection locations for mailed ballots. 25 P.S. §
3150.16(a). Pennsylvania is not alone in this regard—as many
as 34 other states and the District of Columbia authorize
the use of drop boxes or satellite ballot collection sites to
one degree or another. [ECF 549-11, p. 8, fig. 4]. Indeed,
Secretary Boockvar stated that as many as 16% of voters
nationwide had cast their ballots using drop boxes in the 2016
general election, including the majority of voters in Colorado

(75%) and Washington (56.9%). [ECF 547, p. 18 (citing ECF
549-16) ].

1. Secretary Boockvar's guidance with respect to drop
boxes.
Since the passage of Act 77, Secretary Boockvar has
issued several guidance documents to the counties regarding
the counties’ implementation of mail-in voting, including
guidance with respect to the use of drop boxes. [ECF 504-21;
504-22; 504-23; 504-24; 504-25; 571-1, Ex. E]. In general
terms, the Secretary's guidance as to drop boxes informed
the counties that the use of drop boxes was authorized
by the Election Code and recommended “best practices”
for their use. Her latest guidance offered standards for
(1) where drop boxes should be located, [ECF 504-23, §
1.2], (2) how drop boxes should be designed and what
signage should accompany them, [id. at §§ 2.2-2.3], (3) what
security measures should be employed, [id. at § 2.5], and
(4) what procedures should be implemented for collecting
and returning ballots to the county election office, [id. at §§
3.1-3.3, 4].
As to the location of drop boxes, the Secretary recommended
that counties consider the following criteria, [id. at § 1.2]:
• Locations that serve heavily populated urban/suburban
areas, as well as rural areas;
• Locations near heavy traffic areas such as commercial
corridors, large residential areas, major employers and
public transportation routes;
• Locations that are easily recognizable and accessible
within the community;
• Locations in areas in which there have historically been
delays at existing polling locations, and areas with
historically low turnout;
• Proximity to communities with historically low vote by
mail usage;
• Proximity to language minority communities;
• Proximity to voters with disabilities;
• Proximity to communities with low rates of household
vehicle ownership;
• Proximity to low-income communities;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1437 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 64 Document 58-5

12

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

• Access to accessible and free parking; and
• The distance and time a voter must travel by car or public
transportation.
With respect to drop-box design criteria, the Secretary
recommended to counties, [id. at § 2.2]:
*12 • Hardware should be operable without any tight
grasping, pinching, or twisting of the wrist;

declaration signed by the voter and the person rendering
assistance; and
• Signage should provide a statement requesting that the
designated county elections official should be notified
immediately in the event the receptacle is full, not
functioning, or is damaged in any fashion, and should
provide a phone number and email address for such
purpose.

• Hardware should require no more than 5 lbs. of pressure
for the voter to operate;

With respect to ballot security, the Secretary stated that county
boards should implement the following security measures,
[id. at § 2.5]:

• Receptacle should be operable within reach-range of 15 to
48 inches from the floor or ground for a person utilizing
a wheelchair;

• Only personnel authorized by the county board of
elections should have access to the ballots inside of a
drop-box;

• The drop-box should provide specific points identifying
the slot where ballots are inserted;

• Drop-boxes should be secured in a manner to prevent their
unauthorized removal;

• The drop-box may have more than one ballot slot (e.g. one
for drive-by ballot return and one for walk-up returns);

• All drop-boxes should be secured by a lock and sealed
with a tamper-evident seal. Only authorized election
officials designated by the county board of elections may
access the keys and/or combination of the lock;

• To ensure that only ballot material can be deposited
and not be removed by anyone but designated county
board of election officials, the opening slot of a dropbox should be too small to allow tampering or removal
of ballots; and
• The opening slot should also minimize the ability for
liquid to be poured into the drop-box or rainwater to seep
in.
The Secretary's guidance as to signage recommended, [id. at
§ 2.3]:
• Signage should be in all languages required under the
federal Voting Rights Act of 1965 (52 U.S.C. Sec.
10503);
•

Signage should display language stating that
counterfeiting, forging, tampering with, or destroying
ballots is a second-degree misdemeanor pursuant to
sections 1816 and 1817 of the Pennsylvania Election
Code (25 P.S. §§ 3516 and 3517);

• Signage should also provide a statement that third-party
return of ballots is prohibited unless the person returning
the ballot is rendering assistance to a disabled voter or
an emergency absentee voter. Such assistance requires a

• Drop-boxes should be securely fastened in a manner as
to prevent moving or tampering, such as fastening the
drop-box to concrete or an immovable object;
• During the hours when the staffed return site is closed
or staff is unavailable, the drop-box should be placed
in a secure area that is inaccessible to the public and/or
otherwise safeguarded;
• The county boards of election should ensure adequate
lighting is provided at all ballot return sites when the site
is in use;
• When feasible, ballot return sites should be monitored
by a video security surveillance system, or an internal
camera that can capture digital images and/or video. A
video security surveillance system can include existing
systems on county, city, municipal, or private buildings.
Video surveillance should be retained by the county
election office through 60 days following the deadline to
certify the election; and
*13 • To prevent physical damage and unauthorized
entry, the drop-box at a ballot return site located
outdoors should be constructed of durable material able
to withstand vandalism, removal, and inclement weather.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1438 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 64 Document 58-5

13

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

With respect to ballot collection and “chain of custody”
procedures, the Secretary stated that counties should adhere
to the following standards, [id. at §§ 3.1-3.2]:

• The completed collection form should be maintained in
a manner proscribed by the board of elections to ensure
that the form is traceable to its respective secure ballot
container; and

• Ballots should be collected from ballot return sites only
by personnel authorized by the county board of elections
and at times determined by the board of elections, at least
every 24 hours, excluding Saturdays and Sundays;

• The county elections official at the county election office
or central count location should note the number of
ballots delivered on the retrieval form.

• The county board of elections should designate at least
two election officials to collect voted ballots from
a ballot return site. Each designated election official
should carry identification or an official designation
that identifies them as an election official authorized to
collect voted ballots;
• Election officials designated to collect voted ballots by
the board of elections should sign a declaration declaring
that he or she will timely and securely collect and return
voted ballots, will not permit any person to tamper with
a ballot return site or its contents, and that he or she will
faithfully and securely perform his or her duties;
• The designated election officials should retrieve the voted
ballots from the ballot return site and place the voted
ballots in a secure ballot transfer container;
• The designated election officials should note on Ballot
Return Site Collection Forms the site and unique
identification number of the ballot return site and the
date and time of retrieval;
• Ballots collected from any ballot return site should
be immediately transported to the county board of
elections;
• Upon arrival at the office of the county board of elections,
the county board of elections, or their designee(s),
should note the time of arrival on the same form, as
described above;
• The seal number should be verified by a county election
official or a designated representative;
• The county board of elections, or their designee(s),
should inspect the drop-box or secure ballot transfer
container for evidence of tampering and should receive
the retrieved ballots by signing the retrieval form and
including the date and time of receipt. In the event
tampering is evident, that fact must be noted on the
retrieval form;

And finally, as to election day and post-election day
procedures with respect to drop boxes, the Secretary provided
as follows, [id. at §§ 3.3, 4]:
• The county board of elections should arrange for
authorized personnel to retrieve ballots on election night
and transport them to the county board of elections for
canvassing of the ballots;
• Authorized personnel should be present at ballot return
sites immediately prior to 8:00 p m. or at the time the
polls should otherwise be closed;
• At 8:00 p.m. on election night, or later if the polling
place hours have been extended, all ballot return sites
and drop-boxes must be closed and locked;
*14 • Staff must ensure that no ballots are returned to the
ballot return site after the close of polls;
• After the final retrieval after the closing of the polls, the
drop-box must be removed or locked and/or covered to
prevent any further ballots from being deposited, and a
sign shall be posted indicating that polling is closed for
the election; and
• Any ballots collected from a return site should be
processed in the same manner as mail-in ballots
personally delivered to the central office of the county
board of elections official by the voter and ballots
received via the United States Postal Service or any other
delivery service.
The Secretary and her staff developed this guidance
in consultation with subject-matter experts within her
Department and after review of the policies, practices, and
laws in other states where drop boxes have been used. [ECF
549-6, pp. 23:14-22]. The evidence reflects at least one
instance in which the Secretary's deputies reiterated that these
“best practices” should be followed in response to inquiries
from county officials considering whether to use drop boxes.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1439 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 64 Document 58-5

14

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

[ECF 549-32 (“Per our conversation, the list of items are
things the county must keep in mind if you are going to
provide a box for voters to return their ballots in person.”) ].
Approximately 24 counties plan to use drop boxes during the
November general election, to varying degrees. [ECF 549-28;
ECF 504-1]. Of these, about nine counties intend to staff the
drop boxes with county officials, while about 17 counties
intend to use video surveillance in lieu of having staff present.
[ECF 549-28].

2. Defendants’ and Intervenors’ evidence of the benefits
and low risks associated with drop boxes.
Secretary Boockvar advocates for the use of drop boxes
as a “direct and convenient way” for voters to deliver
cast ballots to their county boards of elections, “thereby
increasing turnout.” [ECF 547, p. 22 ¶ 54 (citing 549-11 at
pp. 10-11) ]. The Secretary also touts the special benefits
of expanding drop-box use in the ongoing COVID-19
pandemic. Specifically, she asserts that drop boxes reduce
health risks and inspire voter confidence because “many
voters understandably do not wish to cast their votes in person
at their polling place on Election Day” due to COVID-19.
[Id. at ¶¶ 55, 57 (citing ECF 549-2 ¶ 39; ECF 549-11 at
p. 10; 549-8, ¶ 95) ]. Drop boxes, she says, allow voters
to vote in person without coming into “close proximity to
other members of the public, compared to in-person voting
or personally delivering a mail-in ballot to a public office
building.” [Id. at ¶ 57].
Secretary Boockvar also states that drop boxes are highly
convenient, and cost-saving, for both counties and voters. For
counties, she notes that “24-hour secure ballot drop boxes” are
“cost-effective measures ... as they do not have to be staffed by
election judges.” [Id. at p. 24 ¶ 62 (citing ECF 549-11 at p. 11);
ECF 549-9 at ¶ 34]. As for voters, the Secretary explains that,
in a state where “ten counties ... cover more than 1,000 square
miles” and “two-thirds” of counties “cover more than 500
square miles,” many Pennsylvania voters “could be required
to drive dozens of miles (and perhaps in excess of 100 miles)
if he or she wished to deposit his or her mail-in ballot in person
at the main county board of elections office.” [Id. at ¶ 58
(citing ECF 549-29) ].
*15 In addition to any tangible benefit drop boxes may have
for voter access and turnout, Secretary Boockvar also states
that drop boxes have a positive impact on voter confidence.

In particular, she cites a recent news article, and a letter sent
by the General Counsel of the U.S. Postal Service regarding
Pennsylvania's absentee and mail-in ballot deadline, which
have raised concerns over the timeliness and reliability of the
U.S. Postal Service. [Id. at ¶¶ 60-61 (citing ECF 549-13; ECF
549-14); ECF 549-17; ECF 549-2 ¶¶ 42-43]. Voters’ fears that
votes returned by mail will not be timely counted could, the
Secretary worries, “justifiably dissuade voters from wanting
to rely upon the Postal Service for return of their mail-in or
absentee ballot.” [ECF 547, ¶ 61]. Drop boxes, she says, can
address this concern by allowing voters to safely return mailin ballots to an in-person location.
In exchange for these benefits, the Secretary insists that any
potential security risk associated with drop boxes is low. She
notes that the federal Department of Homeland Security has
released guidance affirming that a “ballot drop box provides
a secure and convenient means for voters to return their mail
ballot,” and recommending that states deploy one drop box
for every 15,000 to 20,000 registered voters. [Id. at ¶¶ 63-65
(citing ECF 549-24, p. 1) ]. She also points to a purported lack
of evidence of systemic ballot harvesting or any attempts to
tamper with, destroy, or otherwise commit voter fraud using
drop boxes, either in Pennsylvania's recent primary election,
or in other states that have used drop boxes for many years.
[Id. at ¶¶ 68-74 (citations omitted) ]. And she asserts that “[i]n
the last 20 years in the entire state of Pennsylvania, there have
been fewer than a dozen confirmed cases of fraud involving
a handful of absentee ballots” among the many millions of
votes cast during that time period. [Id. at ¶ 70 (citing ECF
549-10, pp. 3-4) ].
Finally, the Secretary, and other Defendants and Intervenors,
argue that Pennsylvania already has robust measures in
place to prevent fraud, including its criminal laws, voter
registration system, mail-in ballot application requirement,
and canvassing procedures. [Id. at ¶¶ 66-67 (citing 25 P.S.
§§ 3516 - 3518) ]; [ECF 549-9, p. 15, ¶¶ 46-47 (“These
allegations are not consistent with my experience with drop
box security, particularly given the strong voter verification
procedures that are followed by elections officials throughout
the country and in Pennsylvania. Specifically, the eligibility
and identity of the voter to cast a ballot is examined by an
election judge who reviews and confirms all the personal
identity information provided on the outside envelope. Once
voter eligibility is confirmed, the ballot is extracted and
separated from the outside envelope to ensure the ballot
remains secret. During this step, election judges confirm
that there is only one ballot in the envelope and checks for

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1440 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 64 Document 58-5

15

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

potential defects, such as tears in the ballot.... Regardless
of the receptacle used for acceptance of the ballot (drop
box versus USPS mailbox), ballot validation occurs when
the ballot is received by the county board of elections. The
validation is the same regardless of how the ballots are
collected or who delivers the ballot, even where that delivery
contravenes state law.”) ].
Defendants and Intervenors also point to several expert
reports expressing the view that drop boxes are both low risk
and beneficial. These experts include:
Professor Matthew A. Barreto, a Professor of Political
Science and Chicana/o Studies at UCLA. [ECF 549-7].
Professor Barreto offers the opinion that ballot drop boxes are
an important tool in facilitating voting in Black and Latino
communities. Specifically, he discusses research showing that
Black and Latino voters are “particularly concerned about
the USPS delivering their ballots.” [Id. at ¶ 22]. And he
opines that ballot drop boxes help to reassure these voters that
their vote will count, because “there is no intermediary step
between the voters and the county officials who collect the
ballot.” [Id. at ¶ 24].
*16 Professor Donald S. Burke, a medical doctor and
Distinguished University Professor of Health Science and
Policy, Jonas Salk Chair in Population Health, and Professor
of Epidemiology at the University of Pittsburgh. [ECF 549-8].
Professor Burke details the “significant risk of exposure” to
COVID-19 in “enclosed areas like polling places.” [Id. at ¶
69]. He opines that “depositing a ballot in a mailbox and
depositing a ballot in a drop-box are potential methods of
voting that impart the least health risk to individual voters, and
the least public health risk to the community.” [Id. at ¶ 95].
Amber McReynolds, the CEO of the National Vote at Home
Institute, with 13 years of experience administering elections
as an Elections Director, Deputy Director, and Operations
Manager for the City and County of Denver, Colorado. [ECF
549-9]. Ms. McReynolds opines that “[b]allot drop-boxes can
be an important component of implementing expanded mailin voting” that are “generally more secure than putting a
ballot in post office boxes.” [Id. at ¶ 16 (a) ]. She notes that
“[d]rop boxes are managed by election officials ... delivered
to election officials more quickly than delivery through the
U.S. postal system, and are secure.” [Id.].
Ms. McReynolds also opines that Secretary Boockvar's
guidance with respect to drop boxes is “consistent with

best practices and advice that NVAHI has provided across
jurisdictions.” [Id. at ¶ 35]. But she also notes that “[b]est
practices will vary by county based on the county's available
resources, population, needs, and assessment of risk.” [Id. at
¶ 52].
More generally, Ms. McReynolds argues that “[d]rop-boxes
do not create an increased opportunity for fraud” as compared
to postal boxes. [Id. at ¶ 44]. She also suggests that
Pennsylvania guards against such fraud through other “strong
voter verification procedures,” including “ballot validation
[that] occurs when the ballot is received by the county
board of elections” and “[r]econciliation procedures adopted
by election officials ... [to] protect against the potential
risk of double voting.” [Id. at ¶¶ 46-48]. She notes that
“Pennsylvania's balloting system requires that those who
request a mail-in vote and do not return the ballot (or spoil
the mail-in ballot at their polling place), can only vote a
provisional ballot” and “[i]f a mail-in or absentee ballot was
submitted by an individual, their provisional ballot is not
counted.” [Id. at ¶ 48].
Professor Lorraine C. Minnite, an Associate Professor and
Chair of the Department of Public Policy and Administration
at Rutgers University-Camden. [ECF 549-10]. Professor
Minnite opines that “the incidence of voter fraud in
contemporary U.S. elections is exceedingly rare, including
the incidence of voter impersonation fraud committed
through the use of mail-in absentee ballots.” [Id. at p. 3].
In Pennsylvania specifically, she notes that “[i]n the last 20
years ... there have been fewer than a dozen confirmed cases
of fraud involving a handful of absentee ballots, and most
of them were perpetrated by insiders rather than ordinary
voters.” [Id. at pp. 3-4]. As a “point of reference,” she notes
that 1,459,555 mail-in and absentee ballots were cast in
Pennsylvania's 2020 primary election alone. [Id. at 4].
Professor Robert M. Stein, a Professor of Political Science
at Rice University and a fellow in urban politics at the
Baker Institute. [ECF 549-11]. Professor Stein opines that
“the Commonwealth's use of drop boxes provides a number
of benefits without increasing the risk of mail-in or absentee
voter fraud that existed before drop boxes were implemented
because (manned or unmanned) they are at least as secure
as U.S. Postal Service (‘USPS’) mailboxes, which have been
successfully used to return mail-in ballots for decades in
the Commonwealth and elsewhere around the U.S.” [Id. at
p. 3]. According to Professor Stein, the use of drop boxes
“has been shown to increase turnout,” which he suggests is

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1441 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 64 Document 58-5

16

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

particularly important “during a global pandemic and where
research has shown that natural and manmade disasters have
historically had a depressive effect on voter turnout.” [Id. at
p. 4]. Professor Stein notes that “[d]rop boxes are widely
used across a majority of states as a means to return mail-in
ballots” and he is “not aware of any studies or research that
suggest that drop boxes (manned or unmanned) are a source
for voter fraud.” [Id.]. Nor is he aware “of any evidence that
drop boxes have been tampered with or led to the destruction
of ballots.” [Id.].
*17 Professor Paul Gronke, a Professor of Political
Science at Reed College and Director of the Early
Voting Information Center. [ECF 545-7]. Professor Gronke
recommends that “drop boxes should be provided in
every jurisdiction that has significant (20% or more)
percentage[ ] of voters casting a ballot by mail, which includes
Pennsylvania” for the general election. [Id. at ¶ 6]. He
avers that “[s]cientific research shows that drop boxes raise
voter turnout and enhance voter confidence in the elections
process.” [Id. at ¶ 7]. Voters, he explains, “utilize drop boxes
heavily—forty to seventy percent of voters in vote by mail
states and twenty-five percent or more in no-excuse absentee
states.” [Id.]. Professor Gronke further states that he is “not
aware of any reports that drop boxes are a source for voter
fraud” despite having “been in use for years all over the
country.” [Id. at ¶ 8]. And he suggests that the use of drop
boxes is “especially important” in an election “that will be
conducted under the cloud of the COVID-19 pandemic, and
for a state like Pennsylvania that is going to experience an
enormous increase in the number of by-mail ballots cast by
the citizenry of the state.” [Id. at ¶ 9].
Based on this evidence, and the purported lack of any contrary
evidence showing great risks of fraud associated with the
use of drop boxes, Defendants and Intervenors argue that
Pennsylvania's authorization of drop boxes, and the counties’
specific implementation of them, furthers important state
interests at little cost to the integrity of the election system.

dilutive impact of drop boxes, Plaintiffs offer a combination
of anecdotal and expert evidence.
Foremost among this evidence is the expert report of Greg
Riddlemoser, the former Director of Elections and General
Registrar for Stafford County, Virginia from 2011 until 2019.
[ECF 504-19]. According to Mr. Riddlemoser, “voter fraud
exists.” [Id. at p. 2]. He defines the term “voter fraud” to
mean any “casting and/or counting of ballots in violation of
a state's election code.” [Id.]. Examples he gives include:
“Voting twice yourself—even if in multiple jurisdictions,”
“voting someone else's ballot,” and “[e]lection officials
giving ballots to or counting ballots from people who were
not entitled to vote for various reasons.” [Id. at pp. 2-3]. All
of these things, he asserts, are “against the law and therefore
fraudulent.” [Id.].3
3

As noted above, Plaintiffs and Mr. Riddlemoser use the
term “voter fraud” to mean “illegal voting”—i.e., voter
fraud is any practice that violates the Election Code.
For purposes of the Court's decision and analysis of
Plaintiffs’ vote-dilution claims, the Court accepts this
definition.

Mr. Riddlemoser argues that “ballot harvesting” (which is
the term Plaintiffs use to refer to situations in which an
individual returns the ballots of other people) “persists in
Pennsylvania.” [Id. at p. 3]. He points to the following
evidence to support this opinion:
• Admissions by Pennsylvania's Deputy Secretary
for Elections and Commissions, Jonathan Marks,
that “several Pennsylvania counties permitted ballot
harvesting by counting ballots that were delivered in
violation of Pennsylvania law” during the recent primary
election, [Id.];
• “[S]everal instances captured by the media where voters
in the June 2020 Primary deposited multiple ballots into
unstaffed ballot drop boxes,” [Id. at p. 4];

3. Plaintiffs’ evidence of the risks of fraud and vote
dilution associated with drop boxes.

• “Other photographs and video footage of at least one
county's drop box (Elk County) on Primary Election
day” which “revealed additional instances of third-party
delivery,” [Id.]; and

Plaintiffs, on the other hand, argue that the drop boxes allow
for an unacceptable risk of voter fraud and “illegal delivery
or ballot harvesting” that, when it occurs, will “dilute” the
votes of all lawful voters who comply with the Election
Code. See, e.g., [ECF 461, ¶¶ 127-128]. As evidence of the

• “Documents produced by Montgomery County” which
“reveal that despite signs warning that ballot harvesting
is not permitted, people during the 2020 Primary
attempted to deposit into the five drop boxes used by that
county ballots that were not theirs,” [Id.].

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1442 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 64 Document 58-5

17

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

*18 With respect to the use of “unstaffed” or “unmanned”
ballot drop boxes, Mr. Riddlemoser expresses the opinion
that “the use of unmanned drop boxes presents the easiest
opportunity for voter fraud” and “certain steps must be taken
to make drop boxes ‘secure’ and ‘monitored.’ ” [Id. at p. 16].
He states that, to be “secure,” drop boxes must be “attended”
by “sworn election officials” at all times (i.e., “never left
unattended at any time they are open for ballot drop-off.”).
[Id.]. He further suggests that officials stationed at drop boxes
must be empowered, and required, to “verify the person
seeking to drop off a ballot is the one who voted it and is
not dropping off someone else's ballot.” [Id.]. Doing so, he
says, would, in addition to providing better security, also
“allow the election official to ask the voter if they followed
the instructions they were provided ... and assist them in
doing so to remediate any errors, where possible, before ballot
submission.” [Id.].

given “recent footage of toppled statues and damage to
government buildings” in the news, Mr. Riddlemoser finds
the “forcible removal of ballot drop boxes” to be “a distinct
possibility.” [Id.]. In addition to increasing the risk of ballot
destruction, Mr. Riddlemoser notes that reliance on video
cameras would also “not prohibit someone from engaging in
ballot harvesting by depositing more than one ballot in the
drop box[.]” [Id.].
Beyond Mr. Riddlemoser's expert testimony, Plaintiffs proffer
several other pieces of evidence to support their claims
that drop boxes pose a dilutive threat to the ballots of
lawful voters. Most notably, they present photographs and
video stills of, by the Court's count, approximately seven
individuals returning more than one ballot to drop boxes
in Philadelphia and Elk County (the same photographs
referenced by Mr. Riddlemoser). [ECF 504-19, PDF pp.
49-71].
*19 Those photographs depict the following:

In addition to being “manned,” Mr. Riddlemoser suggests
that certain procedures with respect to ballot collection are
necessary to ensure the integrity of votes cast in drop boxes.
For example, he suggests that, at the end of each day, drop
boxes, which should themselves be “tamperproof,” should
“be verifiably completely emptied into fireproof/tamperproof
receptacles, which are then sealed and labeled by affidavit as
to whom, where, when, etc.” [Id.] Once sealed, the containers
“must then be transported by sworn officials in a county
owned vehicle (preferably marked law enforcement) back
to the county board where they are properly receipted and
safeguarded.” [Id.]. Emptied drop boxes should also be sealed
at the end of each day “such that they are not able to accept
any additional ballots until they are ‘open’ again[.]” [Id.]. And
boxes should be “examined to ensure no ballots are in the
box, that nothing else is inside the box, and that the structural
integrity and any security associated with the box remains
intact.” [Id.]. All of this, he suggests, should also be “available
for monitoring by poll watchers.” [Id.].
According to Mr. Riddlemoser, anything short of these robust
procedures won't do. In particular, “video cameras would not
prevent anyone from engaging in activity that could or is
designed to spoil the ballots inside the box; such as dumping
liquids into the box, lighting the ballots on fire by using
gasoline and matches, or even removing the box itself.” [Id.
at p. 17]. Even if the “identity of the person responsible may
be determined ... the ballots themselves would be destroyed
—effectively disenfranchising numerous voters.” [Id.]. And

• An unidentified woman holding what appear to be two
ballots at a Philadelphia drop box.

• Instagram user “thefoodiebarrister” posing for a selfie
with two ballots in Philadelphia; captioned, in part,
“dropping of [sic] my votes in a designated ballot
drop box.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1443 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 64 Document 58-5

18

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

• A photograph posted to social media showing a hand
placing two ballots in a drop box; captioned, in part,
“Cory and I voted!”

• A photograph of an unidentified man wearing a
“Philadelphia Water” sweater and hat, placing two
ballots in a Philadelphia drop box.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1444 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 64 Document 58-5

19

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

• Several video stills that, according to Plaintiffs, show
voters depositing more than one ballot in an Elk
County drop box.

ballots that lacked a completed certification on the
outside of the envelope. [Id. (citation omitted) ].
• The recent guilty plea of the former Judge of Elections
in South Philadelphia, Domenick J. DeMuro, to adding
fraudulent votes to voting machines on election day.
[ECF 461, ¶ 61]; see United States v. DeMuro, No. 20cr-112 (E.D. Pa. May 21, 2020).
• The 2014 guilty plea of Harmar Township police chief
Richard Allen Toney to illegally soliciting absentee
ballots to benefit his wife and her running mate in the
2009 Democratic primary for town council, [ECF 461,
¶ 69];
• The 2015 guilty plea of Eugene Gallagher for unlawfully
persuading residents and non-residents of Taylor, in
Lackawanna County, Pennsylvania, to register for
absentee ballots and cast them for him during his
councilman candidacy in the November 2013 election,
[Id.];

In addition to these photographs and video stills, Plaintiffs
also provide a May 24, 2020, email sent by an official
in Montgomery County (which placed security guards to
monitor its drop boxes) observing that security “have turned
people away yesterday and today without incident who had
ballots other than their own.” [ECF 504-28].
Separate and apart from this evidence specific to the use of
drop boxes, Plaintiffs and their expert also provide evidence
of instances of election fraud, voter fraud, and illegal voting
generally. These include, for example:
• A case in which a New Jersey court ordered a
new municipal election after a city councilman and
councilman-elect were charged with fraud involving
mail-in ballots. [ECF 504-19, p. 3].
• A New York Post article written by an anonymous
fraudster who claimed to be a “master at fixing mail-in
ballots” and detailed his methods. [Id.].
• Philadelphia officials’ admission that approximately 40
people were permitted to vote twice during the 2020
primary elections. [Id.].
• A YouTube video purporting to show Philadelphia
election officials approving the counting of mail-in

*20 • The 1999 indictment of Representative Austin J.
Murphy in Fayette County for forging absentee ballots
for residents of a nursing home and adding his wife as a
write-in candidate for township election judge, [Id.];
• The 1994 Eastern District of Pennsylvania and Third
Circuit case Marks v. Stinson, which involved an alleged
incident of extensive absentee ballot fraud by a candidate
for the Pennsylvania State Senate, see Marks v. Stinson,
19 F.3d 873 (3d Cir. 1994); Marks v. Stinson, No.
93-6157, 1994 WL 146113 (E.D. Pa. Apr. 26, 1994),
[ECF 461, ¶ 78]; and
• A report from the bipartisan Commission on Federal
Election Reform, chaired by former President Jimmy
Carter and former Secretary of State James A. Baker
III, which observed that absentee voting is “the largest
source of potential voter fraud” and proposed that states
“reduce the risks of fraud and abuse in absentee voting
by prohibiting ‘third-party’ organizations, candidates,
and political party activists from handling absentee
ballots.” [ECF 461, ¶¶ 66-67, 80].
C. Facts relevant to signature comparison.
Many of the facts relevant to Plaintiffs’ signature-comparison
claim relate to the verification procedures for mail-in and
absentee ballots, on one hand, and those procedures for inperson voting, on the other. These are described below.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1445 Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 64 Document 58-5

20

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680
district, shall obtain such qualifications before the next
ensuing election”).

1. Mail-in and absentee ballot verification.
As noted above, Pennsylvania does not distribute unsolicited
mail-in and absentee ballots. Rather, a voter must apply for
the ballot (and any voter can). [ECF 549-2, ¶ 64]. As part of
the application for a mail-in ballot,4 an applicant must provide
certain identifying information, including name, date of birth,
length of time as a resident of the voting district, voting
district if known, party choice in the primary, and address
where the ballot should be sent. 25 P.S. § 3150.12(b). In
applying for a mail-in ballot, the applicant must also provide
“proof of identification,” which is defined by statute as that
person's driver's license number, last four digits of Social
Security number, or another specifically approved form of
identification. [ECF 549-2, ¶ 64; ECF 549-27]; 25 P.S. §
2602(z.5)(3). A signature is not mentioned in the definition
of “proof of identification.” 25 P.S. § 2602(z.5)(3). However,
if physically capable, the applicant must sign the application.
Id. at § 3150.12(c)-(d).
4

The procedure for absentee ballots and applications
largely resembles the procedure for mail-in ballots and
applications.

Upon receiving the mail-in ballot application, the county
board of elections determines if the applicant is qualified
by “verifying the proof of identification and comparing the
information provided on the application with the information
contained on the applicant's permanent registration card.”
25 P.S. § 3150.12b(a). The county board of elections then
either approves the application5 or “immediately” notifies
the applicant if the application is not approved. Id. at §
3150.12b(a), (c). Upon approval, the county mails the voter
the mail-in ballot.
5

If the application is approved, the approval is “final and
binding,” subject only to challenges “on the grounds
that the applicant was not a qualified elector.” 25 P.S.
§ 3150.12b(a)(2). An unqualified elector would be, for
example, an individual who has not “been a citizen of
the United States at least one month.” Pa. Const. Art.
7, § 1; see also 25 P.S. § 2602(t) (defining “qualified
elector” as “any person who shall possess all of the
qualifications for voting now or hereafter prescribed by
the Constitution of this Commonwealth, or who, being
otherwise qualified by continued residence in his election

*21 After receiving the ballot, the mail-in voter must “mark
the ballot” with his or her vote, insert the ballot into the
“secrecy” envelope, and place the “secrecy” envelope into
a larger envelope. Id. at § 3150.16(a). Then, the voter must
“fill out, date and sign the declaration printed on [the larger]
envelope. [The larger] envelope shall then be securely sealed
and the elector shall send [it] by mail ... or deliver it in person
to said county board of election.” Id. The declaration on the
larger envelope must be signed, unless the voter is physically
unable to do so. Id. at § 3150.16(a)-(a.1).
Once the voter mails or delivers the completed mail-in ballot
to the appropriate county board of elections, the ballot is kept
“in sealed or locked containers until they are to be canvassed
by the county board of elections.” Id. at § 3146.8(a). The
county boards of elections can begin pre-canvassing and
canvassing the mail-in ballots no earlier than election day. Id.
at § 3146.8(g)(1.1).
When pre-canvassing and canvassing the mail-in ballots, the
county boards of elections must “examine the declaration on
the [larger] envelope of each ballot ... and shall compare the
information thereon with that contained in the ...Voters File.”
Id. at § 3146.8(g)(3). The board shall then verify the “proof
of identification” and shall determine if “the declaration [on
the larger envelope] is sufficient.” Id. If the information in the
“Voters File ... verifies [the elector's] right to vote,” the ballot
shall be counted. Id.

2. In-person voting verification.
When a voter decides to vote in-person on election day, rather
than vote by mail, the procedures are different. There is no
application to vote in person. Rather, on election day, the inperson voter arrives at the polling place and “present[s] to
an election officer proof of identification,” which the election
officer “shall examine.” Id. at § 3050(a). The in-person voter
shall then sign a voter's certificate” and give it to “the election
officer in charge of the district register.” Id. at § 3050(a.3)
(1). Next, the election officer shall “announce the elector's
name” and “shall compare the elector's signature on his voter's
certificate with his signature in the district register.” Id. at
§ 3050(a.3)(2). If the election officer believes the signature
to be “genuine,” the in-person voter may vote. Id. But if the
election officer does not deem the signature “authentic,” the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1446 Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 64 Document 58-5

21

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

in-person voter may still cast a provisional ballot and is given
the opportunity to remedy the deficiency. Id.

3. The September 11, 2020, and September 28, 2020, sets
of guidance.
In September 2020, Secretary Boockvar issued two new
sets of guidance related to signature comparisons of
mail-in and absentee ballots and applications. The first,
issued on September 11, 2020, was titled “Guidance
Concerning Examination of Absentee and Mail-In Ballot
Return Envelopes.” [ECF 504-24]. The guidance stated,
in relevant part, the “Pennsylvania Election Code does
not authorize the county board of elections to set aside
returned absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” [Id. at p. 3]. The
second set of guidance, issued on September 28, 2020, was
titled, “Guidance Concerning Civilian Absentee and MailIn Ballot Procedures.” [ECF 504-25]. This September 28,
2020, guidance stated, in relevant part, “The Election Code
does not permit county election officials to reject applications
or voted ballots based solely on signature analysis. ... No
challenges may be made to mail-in and absentee ballots at
any time based on signature analysis.” [Id. at p. 9]. Thus, as
evidenced by these two sets of guidance, Secretary Boockvar
advised the county boards of elections not to engage in a
signature-comparison analysis of voters’ signatures on ballots
and applications for ballots.
*22 Most of the counties intend to follow the Secretary's
guidance and will not compare signatures on mail-in ballots
and applications for the upcoming general election. E.g.,
[ECF 504-1]. A few counties, however, stated their intent to
not comply with the guidance, and instead would compare
and verify the authenticity of signatures. E.g., [id. (noting the
counties of Cambria, Elk, Franklin, Juniata, Mifflin, Sullivan,
Susquehanna, and Wyoming, as not intending to follow
Secretary Boockvar's guidance to not compare signatures) ].
According to Defendants, there are valid reasons to not
require signature comparisons for mail-in and absentee
ballots. For example, Secretary Boockvar notes that signature
verification is a technical practice, and election officers are
not “handwriting experts.” [ECF 549-2, p. 19, ¶ 68]. Secretary
Boockvar also notes that voters’ signatures can change
over time, and various medical conditions (e.g., arthritis)
can impact a person's signature. [Id.] Defendants’ expert,
Amber McReynolds, also finds that “signature verification”

involves “inherent subjectivity.” [ECF 549-9, p. 20, ¶ 64].
Ms. McReynolds further notes the “inherent variability of
individuals’ signatures over time.” [Id.] And according to
Secretary Boockvar, these are just some reasons Pennsylvania
implements verification procedures other than signature
comparisons for mail-in voters, who, unlike in-person voters,
are not present when their signature would be verified. [ECF
549-2, p. 20, ¶ 69].
Plaintiffs’ expert, Greg Riddlemoser, on the other hand, states
that signature comparison is “a crucial security aspect of voteby-mail” and failing to verify signatures on mail-in ballots
would “undermine voter confidence and would increase the
possibility of voter fraud.” [ECF 504-19, pp. 10-11]. Mr.
Riddlemoser asserts that Secretary Boockvar's September
11, 2020, and September 28, 2020, guidance “encourage,
rather than prevent, voter fraud.” [Id. at p. 12]. As such, Mr.
Riddlemoser explains that mail-in voters should be subject
to the same signature-comparison requirement as in-person
voters. [Id. at pp. 13-14].

4. Secretary Boockvar's King's Bench petition.
In light of this case and the parties’ disagreement over
whether the Election Code mandates signature comparison
for mail-in ballots, Secretary Boockvar filed a “King's Bench”
petition with the Pennsylvania Supreme Court on October 4,
2020. In that petition, she asked the Pennsylvania Supreme
Court to exercise its extraordinary jurisdiction, in light of
the impending election, to clarify whether the Election Code
mandates signature comparison of mail-in and absentee
ballots and applications. [ECF 556, p. 11; ECF 557].
On October 7, 2020, several groups, including Donald J.
Trump for President, Inc. and the Republican National
Committee—who are Plaintiffs in this case—moved to
intervene as Respondents in the Pennsylvania Supreme Court
case. [ECF 571-1]. The Pennsylvania Supreme Court has not
yet decided the motion to intervene or whether to accept the
case. The petition remains pending.
D. Facts relevant to poll-watcher claims.
The position of “poll watcher” is a creation of state statute.
See 25 P.S. § 2687. As such, the Election Code defines how a
poll watcher may be appointed, what a poll watcher may do,
and where a poll watcher may serve.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1447 Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 64 Document 58-5

22

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

1. The county-residency requirement for poll watchers.
*23 The Election Code permits candidates to appoint two
poll watchers for each election district. 25 P.S. § 2687(a). The
Election Code permits political parties and bodies to appoint
three poll watchers for each election district. Id.
For many years, the Pennsylvania Election Code required
that poll watchers serve only within their “election district,”
which the Code defines as “a district, division or precinct, ...
within which all qualified electors vote at one polling place.”
25 P.S. § 2687(b) (eff. to May 15, 2002) (watchers “shall
serve in only one district and must be qualified registered
electors of the municipality or township in which the district
where they are authorized to act is located”); 25 P.S. §
2602(g). Thus, originally, poll watching was confined to a
more limited geographic reach than one's county, as counties
are themselves made up of many election districts.
Then, in 2004, the General Assembly amended the relevant
poll-watcher statute to provide that a poll watcher “shall
be authorized to serve in the election district for which the
watcher was appointed and, when the watcher is not serving
in the election district for which the watcher was appointed, in
any other election district in the county in which the watcher
is a qualified registered elector.” 25 P.S. § 2687(b) (eff. Oct.
8, 2004).
This county-residency requirement is in line with (or is, in
some cases, more permissive than) the laws of at least eight
other states, which similarly require prospective poll watchers
to reside in the county in which they wish to serve as a
watcher or (similar to the pre-2004 Pennsylvania statute) limit
poll watchers to a sub-division of the county. See, e.g., Fla.
Stat. Ann. § 101.131(1) (Florida); Ind. Code Ann. § 3-6-8-2.5
(Indiana); Ky. Rev. Stat. Ann. § 117.315(1) (Kentucky); N.Y.
Elec. Law § 8-500(5) (New York); N.C. Gen. Stat. Ann. §
163-45(a) (North Carolina); Tex. Elec. Code Ann. § 33.031(a)
(Texas); S.C. Code Ann. § 7-13-860 (South Carolina); Wyo.
Stat. Ann. § 22-15-109(b) (Wyoming). However, at least one
state (West Virginia) does not provide for poll watchers at all.
See W. Va. Code Ann. § 3-1-37; W. Va. Code Ann. § 3-1-41
The General Assembly has not amended the poll-watcher
statute since 2004, even though some lawmakers have
advocated for the repeal of the residency requirement. See
Cortés, 218 F. Supp. 3d at 402 (observing that legislative

efforts to repeal the poll-watcher residency requirement have
been unsuccessful).
As part of its September 17, 2020, decision, the Pennsylvania
Supreme Court found that the county-residency requirement
does not violate the U.S. or Pennsylvania constitutions.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *31.

2. Where and when poll watchers can be present during
the election.
The Pennsylvania Election Code sets forth the rules for where
and when poll watchers are permitted to be present.
The Election Code provides that poll watchers may be
present “at any public session or sessions of the county
board of elections, and at any computation and canvassing
of returns of any primary or election and recount of ballots
or recanvass of voting machines under” the Code. 25 P.S.
§ 2650. Additionally, one poll watcher for each candidate,
political party, or political body may “be present in the polling
place ... from the time that the election officers meet prior to
the opening of the polls ... until the time that the counting of
votes is complete and the district register and voting check list
is locked and sealed.” 25 P.S. § 2687(b).
*24 During this time, poll watchers may raise objections
to “challenge any person making application to vote.” Id.
Poll watchers also may raise challenges regarding the voters’
identity, continued residence in the election district, or
registration status. 25 P.S. § 3050(d).
Although Pennsylvania has historically allowed absentee
ballots to be returned by U.S. Postal Service or by in-person
delivery to a county board of elections office, the Election
Code does not provide (and has never provided for) any right
to have poll watchers in locations where absentee voters fill
out their ballots (which may include their home, office, or
myriad other locations), nor where those votes are mailed
(which may include their own mailbox, an official U.S. Postal
Service collection box, a work mailroom, or other places
U.S. Postal Service mail is collected), nor at county board of
elections offices. [ECF 549-2, ¶¶ 86-90].
Before Act 77, absentee ballots were held in election districts
rather than centralized at the county board of elections. See
25 P.S. § 3146.8 (eff. Mar. 14, 2012 to Oct. 30, 2019) (“In
all election districts in which electronic voting systems are

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1448 Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 64 Document 58-5

23

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

used, absentee ballots shall be opened at the election district,
checked for write-in votes in accordance with section 1113A and then either hand-counted or counted by means of the
automatic tabulation equipment, whatever the case may be.”).
At such time (again, before Act 77), poll workers opened
those absentee ballots at each polling place after the close of
the polls. Id. (“Except as provided in section 1302.1(a.2), the
county board of elections shall then distribute the absentee
ballots, unopened, to the absentee voter's respective election
district concurrently with the distribution of the other election
supplies. Absentee ballots shall be canvassed immediately
and continuously without interruption until completed after
the close of the polls on the day of the election in each election
district. The results of the canvass of the absentee ballots shall
then be included in and returned to the county board with the
returns of that district.” (footnote omitted)).
With the enactment of Act 77, processing and counting of
mail-in and absentee ballots is now centralized in each county
board of elections, with all mail-in and absentee ballots in
such county held and counted at the county board of elections
(or such other site as the county board may choose) without
regard to which election district those ballots originated from.
25 P.S. § 3146.8(a) (eff. Mar. 27, 2020); [ECF 549-2, ¶ 81].
Under Act 12, counties are permitted to “pre-canvass” mail-in
or absentee ballots received before Election Day beginning at
7:00 a m. on Election Day. 25 P.S. § 3146.8(g)(1.1). Counties
are further permitted to “canvass” ballots received after that
time beginning “no earlier than the close of the polls on the
day of the election and no later than the third day following
the election.” Id. § 3146.8(g)(2).
The Election Code permits “[o]ne authorized representative
of each candidate” and “one representative from each political
party” to “remain in the room in which the absentee ballots
and mail-in ballots are pre-canvassed.” 25 P.S. § 3146.8(g)
(1.1). Similarly, during canvassing, the Election Code permits
“[o]ne authorized representative of each candidate” and “one
representative from each political party” to “remain in the
room in which the absentee ballots and mail-in ballots are
canvassed.” 25 P.S. § 3146.8(g)(2).
*25 The Election Code provisions pertaining to the “precanvass” and “canvass” do not make any separate reference
to poll watchers, instead referring only to the “authorized
representatives” of parties and candidates. See 25 P.S. §
3146.8.

On October 6, 2020, Secretary Boockvar issued guidance
concerning poll watchers and authorized representatives.
[ECF 571-1]. The guidance states that poll watchers “have
no legal right to observe or be present at ... ballot return
sites,” such as drop-box locations. [ECF 571-1, Ex. E,
p. 5]. The guidance also states that while a candidate's
authorized representative may be present when mail-in ballots
are opened (including during pre-canvass and canvass), the
representative cannot challenge those ballots. [Id. at Ex. E, p.
4].
On October 9, 2020, in a separate lawsuit brought by
the Trump Campaign in the Philadelphia County Court of
Common Pleas, the state court there confirmed Secretary
Boockvar's guidance. Specifically, the state court held
that satellite ballot-collection locations, such as drop-box
locations, are not “polling places,” and therefore poll watchers
are not authorized to be present in those places. [ECF 573-1,
p. 12 (“It is clear from a reading of the above sections [of the
Election Code] that the satellite offices where these activities,
and only these activities, occur are true ‘offices of the Board
of Elections’ and are not polling places, nor public sessions
of the Board of Elections, at which watchers have a right to
be present under the Election Code.”) ]. Immediately after
issuance of this decision, the Trump Campaign filed a notice
of appeal, indicating its intention to appeal the decision to
the Commonwealth Court of Pennsylvania. Having just been
noticed, that appeal remains in its infancy as of the date of
this Opinion.

3. Plaintiffs’ efforts to recruit poll watchers for the
upcoming general election.
In order to become a certified poll watcher, a candidate must
meet certain criteria. [ECF 504-20, ¶ 9]. That is, a poll watcher
needs to be “willing to accept token remuneration, which is
capped at $120 under Pennsylvania state law” and must be
able to take off work or otherwise make arrangements to be at
the polling place during its open hours on Election Day, which
can mean working more than 14 hours in a single day. [Id.].
The Pennsylvania Director for Election Day Operations
for the Trump Campaign, James J. Fitzpatrick, stated that
the Trump Campaign wants to recruit poll watchers for
every county in Pennsylvania. [ECF 504-2, ¶ 30]. To that
end, the RNC and the Trump Campaign have initiated
poll-watcher recruitment efforts for the general election by

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1449 Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 64 Document 58-5

24

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

using a website called DefendYourBallot.com. [ECF 528-14,
265:2-15, 326:14-329-7]. That website permits qualified
electors to volunteer to be a poll watcher. [Id.]. In addition,
Plaintiffs have called qualified individuals to volunteer
to be poll watchers, and worked with county chairs and
conservative activists to identify potential poll watchers. [Id.].
Despite these efforts, the Trump Campaign claims it “is
concerned that due to the residency restriction, it will not have
enough poll watchers in certain counties.” [ECF 504-2, ¶ 25].
Mr. Fitzpatrick, however, could not identify a specific county
where the Trump Campaign has been unable to obtain full
coverage of poll watchers or any county where they have tried
and failed to recruit poll watchers for the General Election.
[ECF 528-14, 261:21-262:3, 263:8-19, 265:2-266:3].

poll watchers who meet the residency requirement[ ].” [Id. at
¶ 16].
Additionally, Professor Lockerbie finds the gap in registered
voters in various counties to be especially problematic for
minor political parties. [Id. at ¶ 16]. As just one example,
according to Professor Lockerbie, even if one were to assume
that all third-party voters were members of the same minor
party, then in Philadelphia County it would require “every 7th
registrant” to be a poll watcher in order for the third party to
have a poll watcher observing each precinct.” [Id.].
Professor Lockerbie believes that disruptions to public
life caused by the COVID-19 pandemic “magnified” the
difficulties in securing sufficient poll watchers. [Id. at ¶ 10].

*26 In his declaration, Representative Reschenthaler shared
Mr. Fitzpatrick's concern, stating that he does not believe that
he will “be able to recruit enough volunteers from Greene
County to watch the necessary polls in Greene County.” [ECF
504-6, ¶ 12]. But Representative Reschenthaler did not
provide any information regarding his efforts to recruit poll
watchers to date, or what he plans to do in the future to attempt
to address his concern. See generally [id.].

Nothing in the Election Code limits parties from recruiting
only registered voters from their own party. [ECF 528-14,
267:23-268:1]. For example, the Trump Campaign utilized at
least two Democrats among the poll watchers it registered in
the primary. [ECF 528-15, P001648].

Representative Kelly stated in his declaration that he was
“likely to have difficulty getting enough poll watchers from
within Erie County to watch all polls within that county on
election day.” [ECF 504-5, ¶ 16]. Representative Kelly never
detailed his efforts (e.g., the outreach he tried, prospective
candidates he unsuccessfully recruited, and the like), and he
never explained why those efforts aren't likely to succeed in
the future. See generally [id.].

Defendants have advanced several reasons to explain the
rationale behind county-residency requirement for poll
watchers.

In his declaration, Representative Thompson only stated that
based on his experience, “parties and campaigns cannot
always find enough volunteers to serve as poll watchers in
each precinct.” [ECF 504-4, ¶ 20].
According to statistics collected and disseminated by the
Pennsylvania Department of State, there is a gap between the
number of voters registered as Democrats and Republicans
in some Pennsylvania counties. [ECF 504-34]. Plaintiffs’
expert, Professor Lockerbie, believes this puts the party with
less than a majority of voters in that county at a disadvantage
in recruiting poll watchers. [ECF 504-20, ¶ 15]. However,
despite this disadvantage, Professor Lockerbie states that “the
Democratic and Republican parties might be able to meet the
relevant criteria and recruit a sufficient population of qualified

4. Rationale for the county-residency requirement.

Secretary Boockvar has submitted a declaration, in which
she has set forth the reasons for and interests supporting
the county-residency requirement. Secretary Boockvar states
that the residency requirement “aligns with Pennsylvania's
county-based election scheme[.]” [ECF 549-2, p. 22, ¶ 77].
“By restricting poll watchers’ service to the counties in which
they actually reside, the law ensures that poll watchers should
have some degree of familiarity with the voters they are
observing in a given election district.” [Id. at p. 22, ¶ 78].
*27 In a similar vein, Intervenors’ expert, Dr. Barreto, in his
report, states that, voters are more likely to be comfortable
with poll watchers that “they know” and are “familiar with ...
from their community.” [ECF 524-1, p. 14, ¶ 40]. That's
because when poll watchers come from the community, “there
is increased trust in government, faith in elections, and voter
turnout[.]” [Id.].
At his deposition, Representative Kelly agreed with this
idea: “Yeah, I think – again, depending how the districts

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1450 Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 64 Document 58-5

25

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

are established, I think people are probably even more
comfortable with people that they – that they know and they
recognize from their area.” [ECF 524-23, 111:21-25].

LEGAL STANDARD
Summary judgment is appropriate “if the movant shows that
there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). At summary judgment, the Court must ask whether
the evidence presents “a sufficient disagreement to require
submission to the jury or whether it is so one-sided that one
party must prevail as a matter of law.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 251-52, 106 S.Ct. 2505, 91 L.Ed.2d
202 (1986). In making that determination, the Court must
“consider all evidence in the light most favorable to the party
opposing the motion.” A.W. v. Jersey City Pub. Schs., 486 F.3d
791, 794 (3d Cir. 2007).
The summary-judgment stage “is essentially ‘put up or shut
up’ time for the non-moving party,” which “must rebut the
motion with facts in the record and cannot rest solely on
assertions made in the pleadings, legal memoranda, or oral
argument.” Berckeley Inv. Grp. Ltd. v. Colkitt, 455 F.3d 195,
201 (3d Cir. 2006). If the non-moving party “fails to make
a showing sufficient to establish the existence of an element
essential to that party's case, and on which that party will
bear the burden at trial,” summary judgment is warranted.
Celotex Corp. v. Catrett, 477 U.S. 317, 324, 106 S.Ct. 2548,
91 L.Ed.2d 265 (1986).
“The rule is no different where there are cross-motions for
summary judgment.” Lawrence v. City of Philadelphia, 527
F.3d 299, 310 (3d Cir. 2008). The parties’ filing of crossmotions “does not constitute an agreement that if one is
rejected the other is necessarily justified[.]” Id. But the
Court may “resolve cross-motions for summary judgment
concurrently.” Hawkins v. Switchback MX, LLC, 339 F. Supp.
3d 543, 547 (W.D. Pa. 2018). When doing so, the Court views
the evidence “in the light most favorable to the non-moving
party with respect to each motion.” Id.

drop-box claim, (2) the signature-comparison claim, and (3)
the poll-watching claim. The common constitutional theory
behind each of these claims is vote dilution. Absent the
security measures that Plaintiffs seek, they fear that others
will commit voter fraud, which will, in turn, dilute their
lawfully cast votes. They assert that this violates the federal
and Pennsylvania constitutions.
The Court will address only the federal-constitutional claims.
For the reasons that follow, the Court finds that Plaintiffs lack
standing to bring their federal-constitutional claims because
Plaintiffs’ injury of vote dilution is not “concrete” for Article
III purposes.
But even assuming Plaintiffs had standing, the Court
also concludes that Defendants’ regulations, conduct, and
election guidance here do not infringe on any right to
vote, and if they do, the burden is slight and outweighed
by the Commonwealth's interests—interests inherent in the
Commonwealth's other various procedures to police fraud, as
well as its overall election scheme.
*28 Finally, because the Court will be dismissing all federalconstitutional claims, it will decline to exercise supplemental
jurisdiction over any of the state-constitutional claims and
will thus dismiss those claims without prejudice.
I. Defendants’ procedural and jurisdictional challenges.
At the outset, Defendants and Intervenors raise a number of
jurisdictional, justiciability, and procedural arguments, which
they assert preclude review of the merits of Plaintiffs’ claims.
Specifically, they assert (1) the claims are not ripe and are
moot, (2) there is a lack of evidence against certain county
boards, and those boards are not otherwise necessary parties,
and (3) Plaintiffs lack standing. The Court addresses each
argument, in turn.
A. Plaintiffs’ claims are ripe and not moot.
Several Defendants have argued that Plaintiffs’ claims in the
Second Amended Complaint are not ripe and are moot. The
Court disagrees.

DISCUSSION & ANALYSIS

1. Plaintiffs’ claims are ripe.

Plaintiffs, Defendants, and Intervenors all cross-move for
summary judgment on all three of Plaintiffs’ remaining
claims, which the Court refers to, in the short-hand, as (1) the

The ripeness doctrine seeks to “prevent the courts, through
the avoidance of premature adjudication, from entangling
themselves in abstract disagreements.” Artway v. Attorney

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1451 Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 64 Document 58-5

26

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Gen. of N.J., 81 F.3d 1235, 1246-47 (3d Cir. 1996) (cleaned
up). The ripeness inquiry involves various considerations
including whether there is a “sufficiently adversarial posture,”
the facts are “sufficiently developed,” and a party is
“genuinely aggrieved.” Peachlum v. City of York, 333 F.3d
429, 433-34 (3d Cir. 2003). Ripeness requires the case to
“have taken on fixed and final shape so that a court can
see what legal issues it is deciding, what effect its decision
will have on the adversaries, and some useful purpose to
be achieved in deciding them.” Wyatt, Virgin Islands, Inc. v.
Gov't of the Virgin Islands, 385 F.3d 801, 806 (3d Cir. 2004)
(quoting Pub. Serv. Comm'n of Utah v. Wycoff Co., 344 U.S.
237, 244, 73 S.Ct. 236, 97 L.Ed. 291 (1952)). “A dispute is
not ripe for judicial determination if it rests upon contingent
future events that may not occur as anticipated, or indeed may
not occur at all.” Id.
Ultimately, “[r]ipeness involves weighing two factors: (1) the
hardship to the parties of withholding court consideration; and
(2) the fitness of the issues for judicial review.” Artway, 81
F.3d at 1247. Unlike standing, ripeness is assessed at the time
of the court's decision (rather than the time the complaint was
filed). See Blanchette v. Connecticut General Ins. Corp., 419
U.S. 102, 139-40, 95 S.Ct. 335, 42 L.Ed.2d 320 (1974).
The Court finds that Plaintiffs’ claims are ripe. Applying
the two-factor test here, the Court first concludes that the
parties would face significant hardship if the Court were to
hold that the case was unripe (assuming it was otherwise
justiciable). The general election is less than one month away,
and Plaintiffs assert claims that could significantly affect
the implementation of Pennsylvania's electoral procedures.
Further, if the Court were to find that Plaintiffs’ claims
were not ripe, Plaintiffs would be burdened. This is because
Plaintiffs would then have to either wait until after the election
occurred—and thus after the alleged harms occurred—or
Plaintiffs would have to bring suit on the very eve of the
election, and thus there would be insufficient time for the
Court to address the issues. This hardship makes judicial
review at this time appropriate. The first factor is met.
*29 Some Defendants argue that because some of the
Secretary's guidance was issued after the 2020 primary
election, Plaintiffs’ claims that rely on such guidance are not
ripe because the guidance has not been implemented in an
election yet. The Court disagrees. Both the allegations in the
Second Amended Complaint, and the evidence presented on
summary judgment, reveal that the guidance issued after the

primary election will apply to the upcoming general election.
This is sufficient to make this a properly ripe controversy.6
6

In her summary-judgment brief, Secretary Boockvar
argues that Plaintiffs’ as-applied challenge to
Pennsylvania's county-residency requirement is unripe.
[ECF 547, pp. 60-63]. The Secretary reasons that
Plaintiffs have not shown sufficient evidence that they
are harmed by the county-residency requirement. This
argument is directed more towards a lack of standing and
a lack of evidence to support the claim on the merits.
As the sufficiency of the evidence of harm is a separate
issue from ripeness (which is more concerned with
timing), the Court does not find Plaintiffs’ as-applied
challenge to the county-residency requirement unripe.
See Progressive Mountain Ins. Co. v. Middlebrooks, 805
F. App'x 731, 734 (11th Cir. 2020) (“The question of
ripeness frequently boils down to the same question
as questions of Article III standing, but the distinction
between the two is that standing focuses [on] whether the
type of injury alleged is qualitatively sufficient to fulfill
the requirements of Article III and whether the plaintiff
has personally suffered that harm, whereas ripeness
centers on whether that injury has occurred yet.” (cleaned
up) (citations omitted)).

The second factor the Court must consider in determining
ripeness is “the fitness of the issues for judicial review.”
Artway, 81 F.3d at 1247. “The principal consideration [for this
factor] is whether the record is factually adequate to enable the
court to make the necessary legal determinations. The more
that the question presented is purely one of law, and the less
that additional facts will aid the court in its inquiry, the more
likely the issue is to be ripe, and vice-versa.” Id. at 1249.
Under this framework, the Court concludes that the issues
are fit for review. The parties have engaged in extensive
discovery, creating a developed factual record for the Court
to review. Further, as shown below, the Court finds it can
assess Plaintiffs’ claims based on the current factual record
and can adequately address the remaining legal questions that
predominate this lawsuit. As such, the Court finds Plaintiffs’
claims fit for judicial review.
Thus, Plaintiffs’ claims are presently ripe.

2. Plaintiffs’ claims are not moot.
Some Defendants also assert that Plaintiffs’ claims are moot
because Plaintiffs reference allegations of harm that occurred

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1452 Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 64 Document 58-5

27

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

during the primary election, and since then, Secretary
Boockvar has issued new guidance and the Pennsylvania
Supreme Court has interpreted the Election Code to clarify
several ambiguities. The Court, however, concludes that
Plaintiffs’ remaining claims are not moot.
Mootness stems from the same principle as ripeness, but
is stated in the inverse: courts “lack jurisdiction when ‘the
issues presented are no longer ‘live’ or the parties lack
a legally cognizable interest in the outcome.’ ” Merle v.
U.S., 351 F.3d 92, 94 (3d Cir. 2003) (quoting Powell v.
McCormack, 395 U.S. 486, 496, 89 S.Ct. 1944, 23 L.Ed.2d
491 (1969)). Like ripeness and unlike standing, mootness is
determined at the time of the court's decision (rather than at
the time the complaint is filed). See U.S. Parole Commission
v. Geraghty, 445 U.S. 388, 397, 100 S.Ct. 1202, 63 L.Ed.2d
479 (1980). When assessing mootness, the Court may assume
(for purposes of the mootness analysis) that standing exists.
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs., 528 U.S.
167, 180, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000) (citation
omitted).

Many of the county boards of elections that are Defendants
in this case argue that the claims against them should be
dismissed because Plaintiffs did not specifically allege or
prove sufficient violative facts against them. Plaintiffs argue
in response that all county boards have been joined because
they are necessary parties, and the Court cannot afford relief
without their presence in this case. The Court agrees with
Plaintiffs, and declines to dismiss the county boards from the
case. They are necessary parties.
Federal Rule of Civil Procedure 19(a) states that a party is
a necessary party that must be joined in the lawsuit if, “in
that [party's] absence, the court cannot accord complete relief
among existing parties.” Fed. R. Civ. P. 19(a)(1)(A).
Here, if the county boards were not named defendants in
this case, the Court would not be able to provide Plaintiffs
complete relief should Plaintiffs prove their case. That's
because the Court could not enjoin the county boards if

election.7 Plaintiffs’ claims are not moot.

they were not parties. See Fed. R. Civ. P. 65(d)(2).8 This is
important because each individual county board of elections
manages the electoral process within its county lines. As
one court previously summarized, “Election procedures and
processes are managed by each of the Commonwealth's sixtyseven counties. Each county has a board of elections, which
oversees the conduct of all elections within the county.”
Cortés, 218 F. Supp. 3d at 403 (citing 25 P.S. § 2641(a)). “The
county board of elections selects, fixes and at times alters the
polling locations of new election districts. Individual counties
are also tasked with the preservation of all ballots cast in that
county, and have the authority to investigate fraud and report
irregularities or any other issues to the district attorney[.]”
Id. (citing 25 P.S. §§ 2726, 2649, and 2642). The county
boards of elections may also make rules and regulations “as
they may deem necessary for the guidance of voting machine
custodians, elections officers and electors.” 25 P.S. § 2642(f).

7

8

*30 Here, the Court finds that Plaintiffs’ claims are not
moot, as the claims Plaintiffs are proceeding with are “live.”
First, Plaintiffs’ claims are based on guidance that issued
after the primary election and are to be applied in the
upcoming general election. As such, the harms alleged are
not solely dependent on the already-passed primary election.
Second, Defendants, by and large, have made clear that
they intend to abide by guidance that Plaintiffs assert is
unlawful or unconstitutional. Third, Plaintiffs sufficiently
show that certain Defendants intend to engage in the conduct
(e.g., use unmanned drop-boxes) that Plaintiffs say infringes
their constitutional rights. Thus, these issues are presently
“live” and are not affected by the completion of the primary

In their briefing, the parties focused on the “capable of
repetition yet evading review” exception to the mootness
doctrine. The Court, however, does not find that it needs
to rely on this exception. Nearing the eve of the election,
it is clear that Defendants intend to engage in the conduct
that Plaintiffs assert is illegal and unconstitutional. Thus,
the claims are presently live, and are not “evading
review” in this circumstance.

3. All named Defendants are necessary parties to this
lawsuit.

While Rule 65(d)(2)(C) states that an injunction binds
“[non-parties] who are in active concert or participation”
with the parties or the parties’ agents, the Court does
not find that Rule 65(d) helps the county boards. As
discussed, the county boards manage the elections and
implement the electoral procedures. While the Court
could enjoin Secretary Boockvar, for example, from
using unmanned drop boxes, each individual county
election board could still use unmanned drop boxes on
their own. Doing so would not result in the counties
being in “active concert or participation” with Secretary
Boockvar, as each county is independently managing
the electoral process within their county lines. See

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1453 Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 64 Document 58-5

28

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680
Marshak v. Treadwell, 595 F.3d 478, 486 (3d Cir. 2009)
(“[N]on-parties guilty of aiding or abetting or acting in
concert with a named defendant or his privy in violating
the injunction may be held in contempt.” (cleaned
up) (citations omitted)). In other words, each county
elections board would not be “aiding or abetting”
Secretary Boockvar in violating the injunction (which
would implicate Rule 65(d)(2)(C)); rather, the counties
would be utilizing their independent statutory authority
to manage elections within their county lines.

*31 Indeed, Defendants’ own arguments suggest that they
must be joined in this case. As just one example, a handful
of counties assert in their summary-judgment brief that the
“[Election] Code permits Boards to exercise discretion in
certain areas when administering elections, to administer the
election in a manner that is both legally-compliant and meets
the unique needs of each County's citizens.” [ECF 518, p.
6]. Thus, because of each county's discretionary authority, if
county boards engage in unconstitutional conduct, the Court
would not be able to remedy the violation by enjoining only
Secretary Boockvar.9
9

As evidence of the county boards’ indispensability,
one court recently found that the failure to join local
election officials in an election case can make the harm
alleged not “redressable.” It would be a catch-22 to
say that county boards cannot be joined to this case
as necessary parties, but then dismiss the case for lack
of standing due to the boards’ absence. Cf. Jacobson
v. Florida Secretary of States, 974 F.3d 1236, –––– –
––––, 2020 WL 5289377, at *11-12 (11th Cir. Sept. 3,
2020) (“The problem for the [plaintiffs] is that Florida
law tasks the [county] Supervisors, independently of
the Secretary, with printing the names of candidates on
ballots in the order prescribed by the ballot statute. ...
The Secretary is responsible only for certifying to the
supervisor of elections of each county the names of
persons nominated ... Because the Secretary didn't do
(or fail to do) anything that contributed to [plaintiffs’]
harm, the voters and organizations cannot meet Article
III's traceability requirement.” (cleaned up)).

To grant Plaintiffs relief, if warranted, the Court would need
to enter an order affecting all county boards of elections—
which the Court could not do if some county boards were
not joined in this case. Otherwise, the Court could only
enjoin violative conduct in some counties but not others.
As a result, inconsistent rules and procedures would be in
effect throughout the Commonwealth. While some counties
can pledge to follow orders issued by this Court, the judicial
system cannot rely on pledges and promises, regardless of

the county boards’ good intent. The only way to ensure that
any illegal or unconstitutional conduct is uniformly remedied,
permanently, is to include all county boards in this case.
Thus, because the county boards are necessary parties, the
Court cannot dismiss them.

4. Plaintiffs lack Article III standing to raise their claims
of vote dilution because they cannot establish a “concrete”
injury-in-fact.
While Plaintiffs can clear the foregoing procedural hurdles,
they cannot clear the final one—Article III standing.
Federal courts must determine that they have jurisdiction
before proceeding to the merits of any claim. Steel Co.
v. Citizens for Better Env't, 523 U.S. 83, 94-95, 118
S.Ct. 1003, 140 L.Ed.2d 210 (1998). Article III of the
Constitution limits the jurisdiction of federal courts to
“Cases” and “Controversies.” One component of the caseor-controversy requirement is standing, which requires a
plaintiff to demonstrate the now-familiar elements of (1)
injury in fact, (2) causation, and (3) redressability. See Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560–61, 112 S.Ct. 2130,
119 L.Ed.2d 351 (1992).
Standing is particularly important in the context of electionlaw cases, including a case like this one, that challenge
the laws, regulations, and guidance issued by elected and
appointed state officials through the democratic processes.
As the Supreme Court has explained, the standing “doctrine
developed in our case law to ensure that federal courts do not
exceed their authority as it has been traditionally understood.”
Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547,
194 L.Ed.2d 635 (2016) (cleaned up). The doctrine “limits
the category of litigants empowered to maintain a lawsuit
in federal court to seek redress for a legal wrong.” Id. In
this way, “Article III standing serves to prevent the judicial
process from being used to usurp the powers of the political
branches.” Id. Nowhere is that concern more acute than in a
case that challenges a state's exercise of its core constitutional
authority to regulate the most deeply political arena of all—
elections.
*32 Here, Defendants and Intervenors claim that Plaintiffs
lack standing, largely arguing that Plaintiffs’ injury is too
speculative. [ECF 547, pp. 43-50]. The Court agrees and finds
that Plaintiffs lack Article III standing for this reason.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1454 Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 64 Document 58-5

29

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Initially, to frame the standing inquiry, understanding the
specific claims at issue is important. As discussed above,
there are essentially three claims remaining in this case: (1)
a challenge to Secretary Boockvar's guidance that does not
require all drop boxes to have manned security personnel; (2)
a challenge to Secretary Boockvar's guidance that counties
should not perform a signature comparison for mail-in ballots;
and (3) a challenge to Pennsylvania's county-residency
restriction for poll-watchers. See [ECF 509, pp. 4-5]. The
theory behind all of these claims and the asserted injury is
one of vote dilution due to the heightened risk of fraud; that
is, without the above measures in place, there is an imminent
risk of voter fraud (primarily by mail-in voters); and if that
fraud occurs, it will dilute the votes of many of Plaintiffs,
who intend to vote in person in the upcoming election. [ECF
551, p. 12 (“As qualified electors who will be voting in the
November election, Plaintiffs will suffer an injury through
their non-equal treatment and/or the dilution or debasement
of their legitimately case votes by absentee and mail-in votes
that have not been properly verified by matching the voters’
signatures on their applications and ballots to the permanent
voter registration record and/or that have been improperly
delivered by others to drop boxes or other mobile collection
sites in manners that are different[ ] from those offered or
being used in their counties of residence.”) ].
Turning to the familiar elements of Article III standing,
the first and, in the Supreme Court's estimation, “foremost”
element—injury-in-fact—is dispositive. See Gill v. Whitford,
––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d 313
(2018). Specifically, the Court finds that Plaintiffs’ theory of
vote dilution, based on the evidence presented, is insufficient
to establish standing because Plaintiffs’ injury-in-fact is not
sufficiently “concrete.”
With respect to injury-in-fact, the Supreme Court has made
clear that an injury must be “concrete” and “particularized.”
See Spokeo, 136 S. Ct. at 1548. Defendants argue that the
claimed injury of vote dilution caused by possible voter fraud
here is too speculative to be concrete. The Court agrees.
To establish a “concrete” injury, Plaintiffs rely on a chain
of theoretical events. They first argue that Defendants’ lack
of election safeguards (poll watchers, drop-box guards, and
signature-comparison procedures) creates a risk of voter fraud
or illegal voting. See [ECF 461, ¶¶ 230-31, 240, 256]. That
risk, they say, will lead to potential fraudsters committing
voter fraud or ballot destruction. [Id.]. And if that happens,

each vote cast in contravention of the Election Code will, in
Plaintiffs’ view, dilute Plaintiffs’ lawfully cast votes, resulting
in a constitutional violation.
The problem with this theory of harm is that this fraud hasn't
yet occurred, and there is insufficient evidence that the harm
is “certainly impending.”
To be clear, Plaintiffs need not establish actual fraud at
this stage; but they must establish that fraud is “certainly
impending,” and not just a “possible future injury.” See
Clapper, 568 U.S. at 409, 133 S.Ct. 1138 (“Thus, we have
repeatedly reiterated that threatened injury must be certainly
impending to constitute injury in fact, and that allegations of
possible future injury are not sufficient.”) (cleaned up).
*33 This case is well past the pleading stage. Extensive fact
and expert discovery are complete. [ECF 462]. Nearly 300
exhibits have been submitted on cross-motions for summary
judgment (including 68 by Plaintiffs alone). Plaintiffs bear
the burden of proof on this issue, and unlike on a motion
to dismiss, on summary judgment, they must come forward
with proof of injury, taken as true, that will prove standing,
including a concrete injury-in-fact. See Lujan, 504 U.S. at
561, 112 S.Ct. 2130 (1992) (“At the pleading stage, general
factual allegations of injury resulting from the defendant's
conduct may suffice ... In response to a summary judgment
motion, however, the plaintiff can no longer rest on such mere
allegations, but must set forth by affidavit or other evidence
specific facts ... which for purposes of the summary judgment
motion will be taken to be true.”) (cleaned up).
Based on the evidence presented by Plaintiffs, accepted as
true, Plaintiffs have only proven the “possibility of future
injury” based on a series of speculative events—which falls
short of the requirement to establish a concrete injury. For
example, Plaintiffs’ expert, Mr. Riddlemoser, opines that the
use of “unstaffed or unmanned” drop boxes merely “increases
the possibility for voter fraud (and vote destruction)[.]” [ECF
504-19, p. 20 (emphasis added) ]. That's because, according
to him (and Plaintiffs’ other witnesses), theoretical bad
actors might intentionally “target” a drop box as the “easiest
opportunity for voter fraud” or with the malicious “intent
to destroy as many votes ... as possible.” [Id. at pp. 16-18;
see also ECF 504-2, ¶ 12 (declaring that drop boxes “may
serve as a target for bad actors that may wish to tamper
with lawfully case ballots before such ballots are counted”)
(emphasis added) ]. But there's no way of knowing whether
these independent actors will ever surface, and if they do,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1455 Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 64 Document 58-5

30

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

whether they will act as Mr. Riddlemoser and Plaintiffs
predict.
Similarly, Mr. Riddlemoser concludes that, at most, not
conducting signature analysis for mail-in and absentee ballots
“open[s] the door to the potential for massive fraud through a
mechanism already susceptible to voter fraud.” [ECF 504-19,
p. 20].
This increased susceptibility to fraud and ballot destruction
is the impetus for Plaintiffs, in their various capacities, to
express their concerns that vote dilution might occur and
disrupt their right to a “free and fair election.” See, e.g.,
[504-3, ¶ 6; 504-4, ¶ 7; ECF 504-6, ¶¶ 6-8; ECF 504-7, ¶¶
5-9]. But these concerns, as outlined above, are based solely
on a chain of unknown events that may never come to pass.
In addition to Plaintiffs’ expert report, Plaintiffs’ evidence
consists of instances of voter fraud in the past, including an
article in the N.Y. Post purporting to detail the strategies of an
anonymous fraudster, as well as pointing to certain prior cases
of voter fraud and election irregularities (e.g., Philadelphia
inadvertently allowing 40 people to vote twice in the 2020
primary election; some counties counting ballots that did not
have a completed declaration in the 2020 primary election).
[ECF 461, ¶¶ 63-82; ECF 504-19, p. 3 & Ex. D]. Initially, with
one exception noted directly below, none of this evidence is
tied to individuals using drop boxes, submitting forged mailin ballots, or being unable to poll watch in another county
—and thus it is unclear how this can serve as evidence of
a concrete harm in the upcoming election as to the specific
claims in this case.
*34 Perhaps the best evidence Plaintiffs present are the
several photographs and video stills, which are depicted
above, and which are of individuals who appear to be
delivering more than one ballot to a drop box during the
primary election. It is undisputed that during the primary
election, some county boards believed it be appropriate to
allow voters to deliver ballots on behalf of third parties. [ECF
504-9, 92:4-10; ECF 504-10, 60:3-61:10; ECF 504-49].
But this evidence of past injury is also speculative. Initially,
the evidence is scant. But even assuming the evidence were
more substantial, it would still be speculative to find that
third-party ballot delivery will also occur in the general
election. It may; it may not. Indeed, it may be less likely
to occur now that the Secretary issued her September 28,
2020, guidance, which made clear to all county boards that for

the general election, third-party ballot delivery is prohibited.
[ECF 504-25 (“Third-person delivery of absentee or mail-in
ballots is not permitted, and any ballots delivered by someone
other than the voter are required to be set aside. The only
exceptions are voters with a disability, who have designated
in writing an agent to deliver their ballot for them.”) ]. It may
also be less likely to occur in light of the Secretary's other
guidance, which recommends that county boards place signs
near drop boxes, warning voters that third-party delivery is
prohibited.
It is difficult—and ultimately speculative—to predict future
injury from evidence of past injury. This is why the Supreme
Court has recognized that “[p]ast exposure to illegal conduct
does not in itself show a present case or controversy regarding
injunctive relief if unaccompanied by any continuing, present
adverse effects.” Lujan, 504 U.S. at 564, 112 S.Ct. 2130
(cleaned up).
In fact, based on Plaintiffs’ theory of harm in this case, it
is almost impossible for them to present anything other than
speculative evidence of injury. That is, they would have to
establish evidence of a certainly impending illegal practice
that is likely to be prevented by the precautions they seek.
All of this sounds in “possible future injury,” not “certainly
impending” injury. In that way, this case is very much like the
Supreme Court's decision in Clapper.
In Clapper, plaintiffs-respondents were attorneys, other
advocates, and media groups who communicated with clients
overseas whom they feared would be subject to government
surveillance under a FISA statute. 568 U.S. at 406, 133 S.Ct.
1138. The plaintiffs there alleged that the FISA statute at issue
created a risk of possible government surveillance, which
prevented them from communicating in confidence with their
clients and compelled them to travel overseas instead and
incur additional costs. Id. at 406-07, 133 S.Ct. 1138. Based
on these asserted injures, the plaintiffs filed suit, seeking to
invalidate provisions of FISA. Id. at 407, 133 S.Ct. 1138.
The Supreme Court held that plaintiffs there lacked standing
because their risk of harm was not concrete—rather, it was
attenuated and based on a series of speculative events that
may or may not ever occur. Id. at 410, 133 S.Ct. 1138
(finding that “respondents’ argument rests on their highly
speculative fear that: (1) the Government will decide to
target the communications of non-U.S. persons with whom
they communicate; (2) in doing so, the Government will
choose to invoke its authority under § 1881a rather than

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1456 Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 64 Document 58-5

31

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

utilizing another method of surveillance; (3) the Article III
judges who serve on the Foreign Intelligence Surveillance
Court will conclude that the Government's proposed
surveillance procedures satisfy § 1881a's many safeguards
and are consistent with the Fourth Amendment; (4) the
Government will succeed in intercepting the communications
of respondents’ contacts; and (5) respondents will be parties
to the particular communications that the Government
intercepts).
*35 In the end, the Court found that it would not “endorse
standing theories that rest on speculation about the decisions
of independent actors.” Id. at 414, 133 S.Ct. 1138.
Like Clapper, here, Plaintiffs’ theory of harm rests on
speculation about the decisions of independent actors.
For drop boxes, that speculation includes that unknown
individuals will utilize drop boxes to commit fraud or other
illegal activity; for signature comparison, that fraudsters will
submit forged ballots by mail; for poll watchers, that illegal
votes will not be sufficiently challenged; and for all these
claims, that other security measures in place to monitor drop
boxes, to verify ballot information, and to challenge ballots
will not work.
All of this may occur and may result in some of Plaintiffs’
votes being diluted; but the question is whether these events
are “certainly impending.” The evidence outlined above and
presented by Plaintiffs simply fails to meet that standard.
This is not to say that claims of vote dilution or voter
fraud never give rise to a concrete injury. A plaintiff can
have standing to bring a vote-dilution claim—typically, in a
malapportionment case—by putting forth statistical evidence
and computer simulations of dilution and establishing that
he or she is in a packed or cracked district. See Gill, 138 S.
Ct. at 1936 (Kagan, J., concurring). And a plaintiff can have
standing to bring a voter-fraud claim, but the proof of injury
there is evidence of actual fraud in the election and thus the
suit will be brought after the election has occurred. See, e.g.,
Marks v. Stinson, 19 F.3d 873 (3d Cir. 1994). But, at least
based on the evidence presented here, a claim of vote dilution
brought in advance of an election on the theory of the risk of
potential fraud fails to establish the requisite concrete injury
for purposes of Article III standing.
Plaintiffs advance three other theories of harm here, in order
to establish standing—none of which establish a concrete
injury-in-fact.

First, Plaintiffs assert that since some of them are Republican
candidates and that Republicans are more likely to vote in
person and Democrats more likely to vote by mail, that their
injury here is a competitive disadvantage in the electoral
process. [ECF 551, pp. 16-18 (“The challenged guidance will
further harm the RNC through the institutional prioritization
of voting by mail and the potential disenfranchisement of
Republican voters, who prefer to vote in person in the
upcoming General Election.”) ]. This too is a speculative,
non-concrete injury. There is nothing in the record to establish
that potential voter fraud and dilution will impact Republicans
more than Democrats.
*36 To be sure, the information that Plaintiffs present
shows that more Democrats are likely to use mail-in
ballots. [ECF 551, p. 31 (“[I]n Pennsylvania, of the 1.9
million absentee or mail-in ballots that have been requested
for the November 3, 2020 General Election, ‘nearly 1.5
million Democrats have requested a mail-in ballot—nearly
three times the requests from Republicans.’ ”) (quoting L.
Broadwater, “Both Parties Fret as More Democrats Request
Mail Ballots in Key States,” New York Times (Sept. 30,
2020), available at https://www nytimes.com/2020/09/30/
us/mail-voting-democrats-republicans-turnout html) ]. But it
doesn't necessarily follow that more Democrats will commit
voter fraud, such as through the destruction of drop boxes
or third-party ballot harvesting, and thus more Republicans’
votes will be diluted.
In fact, as Plaintiffs’ expert, Mr. Riddlemoser, explains,
fraudsters from either party could target drop boxes in specific
areas in order to destroy ballots, depending on who may be
the predominant party in the area. [ECF 504-19, at pp. 17-18
(“In short, nothing would prevent someone from intentionally
targeting a drop box in a predominantly Republican or
predominantly Democratic area with an intent to destroy as
many votes for that political party or that party's candidate(s)
as possible.”) ]. Indeed, the more important fact for this theory
of harm is not the party of the voter, but the party of the
fraudster—and, on this, Plaintiffs present no evidence that one
party over the other is likely to commit voter fraud.
Second, Plaintiffs also argue that the RNC, the Congressional
Plaintiffs, and the Trump Campaign have organizational
standing because they “have and will continue to devote
their time and resources to ensure that their Pennsylvania
supporters, who might otherwise be discouraged by the
Secretary's guidance memos favoring mail-in and absentee

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1457 Case 2:20-cv-01771-PP Filed 12/07/20 Page 32 of 64 Document 58-5

32

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

voting and Defendants’ implementation thereof, get out to the
polls and vote on Election Day.” [ECF 551, p. 19]. This is
a similar argument raised by the plaintiffs in Clapper, and
rejected there by the Supreme Court. Because Plaintiffs’ harm
is not “certainly impending,” as discussed above, spending
money in response to that speculative harm cannot establish
a concrete injury. Clapper, 568 U.S. at 416, 133 S.Ct. 1138
(“Respondents’ contention that they have standing because
they incurred certain costs as a reasonable reaction to a risk
of harm is unavailing—because the harm respondents seek to
avoid is not certainly impending. In other words, respondents
cannot manufacture standing merely by inflicting harm on
themselves based on their fears of hypothetical future harm
that is not certainly impending.”); see also Donald J. Trump
for President, Inc. v. Cegavske, ––– F. Supp. 3d ––––, ––––,
2020 WL 5626974, at *5 (D. Nev. Sept. 18, 2020) (“Outside
of stating ‘confusion’ and ‘discouragement’ in a conclusory
manner, plaintiffs make no indication of how AB 4 will
discourage their member voters from voting. If plaintiffs
did not expend any resources on educating their voters on
AB4, their voters would proceed to vote in-person as they
overwhelmingly have in prior elections.”).
Third, with respect to the poll-watching claim, Plaintiffs
argue that at least one of the Plaintiffs, Ms. Patterson, is a
prospective poll watcher who is being denied the right to
poll watch based on the county-residency restriction, and
thus she meets the Article III requirements. [ECF 551, p. 34
(citing ECF 551-3, ¶¶ 9-10) ]. However, Ms. Patterson cannot
establish standing because, by Plaintiffs’ own concession, the
theory of harm in this case is not the denial of the right to poll
watch, but instead dilution of votes from fraud caused from
the failure to have sufficient poll watchers. [ECF 509, p. 67
(“But, the core of the as-applied challenge here is not that the
Plaintiffs cannot staff a particular polling place, it is that a
candidate and his or her party is presented with the Hobson's
choice of selecting limited polling places to observe due to
the residency requirement and accept that unobserved polling
places must exist due to the inability to recruit a sufficient
force of poll watchers due to the necessity that candidates be
county residents.”) ].
*37 And the remedy sought here is much broader than
simply allowing Ms. Patterson to poll watch in a certain
county, but is tied to the broader harm of vote dilution that
Plaintiffs assert. [ECF 503-1, p. 3, ¶ 3 (“Plaintiffs shall be
permitted to have watchers present at all locations where
voters are registering to vote, applying for absentee or mailin ballots, voting absentee or mail-in ballots, and/or returning

or collecting absentee or mail-in ballots, including without
limitation any satellite or early voting sites established by any
county board of elections.”) ]. Standing is measured based on
the theory of harm and the specific relief requested. See Gill,
138 S. Ct. at 1934 (“We caution, however, that ‘standing is
not dispensed in gross’: A plaintiff's remedy must be tailored
to redress the plaintiff's particular injury.”). As with all of
the claims, the poll-watching claim rests on evidence of vote
dilution that does not rise to the level of a concrete harm.
In sum, Plaintiffs here, based on the evidence presented, lack
Article III standing to assert their claims. Because they lack
standing, the Court will enter judgment in Defendants’ favor
and dismiss all claims.10 However, because of the novelty
of Plaintiffs’ claims and theories, a potential appeal in this
case, and the short time before the general election, out of
an abundance of caution, the Court will, in the alternative,
proceed to examine the claims on the merits.
10

The organizational Plaintiffs also raise certain
associational and organizational standing arguments,
asserting that they represent their members’ interests.
The associational standing arguments are derivative of
their members’ interests. That is, because the Court
has found no concrete injury suffered by the individual
voters, which would include the members of the
organizational Plaintiffs, there are no separate grounds
to establish standing for these organizations. See United
Food & Commercial Workers Union Local 751 v. Brown
Grp., Inc., 517 U.S. 544, 553, 116 S.Ct. 1529, 134
L.Ed.2d 758 (1997) (an organization only has standing
to sue on behalf of its members when “its members
would otherwise have standing to sue in their own right”)
(citation omitted).

II. Defendants and Intervenors are entitled to summary
judgment on Plaintiffs’ claim that drop boxes violate the
U.S. Constitution.
Plaintiffs’ drop-box claim has materially changed since
the Pennsylvania Supreme Court's decision authorizing the
use of drop boxes. Plaintiffs now allege that drop boxes
effectively allow third parties to return the ballots of voters
other than themselves because, they say, no one is there
to stop them. Absent an in-person guard or poll worker to
monitor the drop boxes and prevent the return of ballots cast
in a manner contrary to what the Election Code permits,
Plaintiffs assert that they face an unacceptable risk of vote
dilution, which burdens their right to vote. Plaintiffs also
argue that the “uneven” use of drop boxes in Pennsylvania,
by some counties but not others, violates equal protection by

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1458 Case 2:20-cv-01771-PP Filed 12/07/20 Page 33 of 64 Document 58-5

33

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

subjecting voters in different counties to different amounts
of dilutive risk, and perhaps by diluting lawful votes cast by
individuals who failed to comply with the Election Code.
The evidence relevant to these claims is undisputed. See [ECF
509, p. 45 (“After the completion of extensive discovery,
including numerous depositions and responses to discovery
requests, no genuine dispute of material fact exists regarding
Plaintiffs’ constitutional claims.”) ]. Viewed in the light most
favorable to Plaintiffs, the Court could conclude from this
evidence, and will assume for purposes of this decision, that
(1) drop boxes allow for greater risk of third-party ballot
delivery in violation of the Election Code than in-person
polling locations or manned drop boxes, and (2) that the use
of drop boxes is “uneven” across Pennsylvania due to its
county-based election system—i.e., some counties are using
“unmanned” drop boxes with varying security measures,
some are using “manned” drop boxes, some are using dozens
of drop boxes in a variety of locations, some are using one
drop box in a county office building, and some are not using
drop boxes at all. The question before the Court is whether
this state of affairs violates equal protection or due process.
*38 The Court finds that it does not. The uneven use of
drop boxes across counties does not produce dilution as
between voters in different counties, or between “lawful” and
“unlawful” voters, and therefore does not present an equalprotection violation. But even if it did, the guidelines provided
by Secretary Boockvar are rational, and weighing the relative
burdens and benefits, the Commonwealth's interests here
outweigh any burden on Plaintiffs’ right to vote.
A. Pennsylvania's “uneven” use of drop boxes does not
violate federal equal-protection rights.
Plaintiffs’ primary claim concerns the uneven use of drop
boxes across the Commonwealth, which they contend violates
the Equal-Protection Clause of the 14th Amendment.
The 14th Amendment's Equal-Protection Clause commands
that “no State shall ... deny to any person within its jurisdiction
the equal protection of laws.” U.S. Const. amend. XIV, § 1.
This broad and simple promise is “an essential part of the
concept of a government of laws and not men.” Reynolds
v. Sims, 377 U.S. 533, 568, 84 S.Ct. 1362, 12 L.Ed.2d 506
(1964).
But while the Constitution demands equal protection, that
does not mean all forms of differential treatment are
forbidden. See Nordlinger v. Hahn, 505 U.S. 1, 10, 112

S.Ct. 2326, 120 L.Ed.2d 1 (1992) (“Of course, most laws
differentiate in some fashion between classes of persons. The
Equal Protection Clause does not forbid classifications.”).
Instead, equal protection “simply keeps governmental
decisionmakers from treating differently persons who are
in all relevant respects alike.” Id. (citation omitted). What's
more, “unless a classification warrants some form of
heightened review because it jeopardizes exercise of a
fundamental right or categorizes on the basis of an inherently
suspect characteristic, the Equal Protection Clause requires
only that the classification rationally further a legitimate state
interest.” Id. (citations omitted).
Of course, the right of every citizen to vote is a fundamental
right. See Ill. State Bd. of Elections v. Socialist Workers Party,
440 U.S. 173, 184, 99 S.Ct. 983, 59 L.Ed.2d 230 (1979)
(“[F]or reasons too self-evident to warrant amplification here,
we have often reiterated that voting is of the most fundamental
significance under our constitutional structure.”) (citations
omitted). Indeed, it is a foundational right “that helps to
preserve all other rights.” Werme v. Merrill, 84 F.3d 479, 483
(1st Cir. 1996); Wesberry v. Sanders, 376 U.S. 1, 17, 84 S.Ct.
526, 11 L.Ed.2d 481 (1964) (“Other rights, even the most
basic, are illusory if the right to vote is undermined.”). And
its scope is broad enough to encompass not only the right of
each voter to cast a ballot, but also the right to have those
votes “counted without dilution as compared to the votes of
others.” Minn. Voters Alliance v. Ritchie, 720 F.3d 1029, 1031
(8th Cir. 2013) (cleaned up).
As a result, Plaintiffs are quite correct when they suggest
that a state election procedure that burdens the right to
vote, including by diluting the value of votes compared to
others, must “comport with equal protection and all other
constitutional requirements.” Cortés, 218 F. Supp. 3d at 407.
That much, at least, is not in dispute.
At the same time, however, the Constitution “confers on the
states broad authority to regulate the conduct of elections,
including federal ones.” Griffin v. Roupas, 385 F.3d 1128,
1130 (7th Cir. 2004) (citing U.S. Const. Art. I, § 4, cl. 1). This
authority includes “broad powers to determine the conditions
under which the right of suffrage may be exercised.” Shelby
Cnty., Ala. v. Holder, 570 U.S. 529, 543, 133 S.Ct. 2612,
186 L.Ed.2d 651 (2013) (cleaned up). Indeed, “[c]ommon
sense, as well as constitutional law, compels the conclusion”
that states must be free to engage in “substantial regulation
of elections” if “some sort of order, rather than chaos, is to
accompany the democratic processes.” Burdick v. Takushi,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1459 Case 2:20-cv-01771-PP Filed 12/07/20 Page 34 of 64 Document 58-5

34

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

504 U.S. 428, 433, 112 S.Ct. 2059, 119 L.Ed.2d 245 (1992)
(cleaned up). And all “[e]lection laws will invariably impose
some burden upon individual voters.” Id.
*39 If the courts were “to subject every voting regulation to
strict scrutiny and to require that the regulation be narrowly
tailored to advance a compelling state interest,” it “would
tie the hands of States seeking to assure that elections are
operated equitably and efficiently.” Id. The “machinery of
government would not work if it were not allowed a little
play in its joints.” Bain Peanut Co. of Tex. v. Pinson,
282 U.S. 499, 501, 51 S.Ct. 228, 75 L.Ed. 482 (1931).
Thus, when faced with a constitutional challenge to a state
election law, or to the actions of state officials responsible
for regulating elections, a federal court must weigh these
competing constitutional considerations and “make the ‘hard
judgment’ that our adversary system demands.” Crawford v.
Marion Cnty. Election Bd., 553 U.S. 181, 190, 128 S.Ct. 1610,
170 L.Ed.2d 574 (2008).
The Supreme Court has supplied lower courts guidance
as to how to make these hard judgments, by “forg[ing]”
the “flexible standard” for assessing the constitutionality
of election regulations into “something resembling an
administrable rule.” Id. at 205, 128 S.Ct. 1610 (Scalia, J.
concurring) (citing Burdick, 504 U.S. at 434, 112 S.Ct. 2059).
Under this standard, first articulated in Anderson v.
Celebrezze, 460 U.S. 780, 103 S.Ct. 1564, 75 L.Ed.2d 547
(1983) and then refined in Burdick, the fact “[t]hat a law or
state action imposes some burden on the right to vote does
not make it subject to strict scrutiny.” Donatelli v. Mitchell,
2 F.3d 508, 513 (3d Cir. 1993); see also Libertarian Party
of Ohio v. Blackwell, 462 F.3d 579, 585 (6th Cir. 2006)
(“[V]oting regulations are not automatically subjected to
heightened scrutiny.”). Instead, any “law respecting the right
to vote—whether it governs voter qualifications, candidate
selection, or the voting process,” is subjected to “a deferential
‘important regulatory interests’ standard for nonsevere,
nondiscriminatory restrictions, reserving strict scrutiny for
laws that severely restrict the right to vote.” Crawford, 553
U.S. at 204, 128 S.Ct. 1610 (Scalia, J. concurring).
In practice, this means that courts must weigh the “character
and magnitude of the burden the State's rule imposes” on
the right to vote “against the interests the State contends
justify that burden, and consider the extent to which the
State's concerns make that burden necessary.” Timmons v.
Twin Cities Area New Party, 520 U.S. 351, 358, 117 S.Ct.

1364, 137 L.Ed.2d 589 (1997) (cleaned up). If the state
imposes a “severe” burden on the right to vote, strict scrutiny
applies—the rule may survive only if it is “narrowly tailored”
and only if the state advances a “compelling interest.” Id.
But if the state imposes only “reasonable, nondiscriminatory
restrictions,” its “important regulatory interests will usually
be enough” to justify it. Id. Indeed, where state regulations
are “minimally burdensome and nondiscriminatory” a level
of scrutiny “closer to rational basis applies[.]” Ohio Council
8 Am. Fed'n of State v. Husted, 814 F.3d 329, 335 (6th Cir.
2016). And where the state imposes no burden on the “right
to vote” at all, true rational basis review applies. See Biener
v. Calio, 361 F.3d 206, 215 (3d Cir. 2004) (“Biener also
cannot establish an infringement on the fundamental right to
vote ... As the [election] filing fee does not infringe upon
a fundamental right, nor is Biener in a suspect class, we
consider the claims under a rational basis test.”) (citation
omitted); Common Cause/New York v. Brehm, 432 F. Supp. 3d
285, 310 (S.D.N.Y. 2020) (“Under this framework, election
laws that impose no burden on the right to vote are subject to
rational-basis review.”).
*40 This operates as a “sliding scale”—the “more severe
the burden imposed, the more exacting our scrutiny; the less
severe, the more relaxed our scrutiny.” Arizona Libertarian
Party v. Hobbs, 925 F.3d 1085, 1090 (9th Cir. 2019); see
also Fish v. Schwab, 957 F.3d 1105, 1124 (10th Cir. 2020)
(“We, and our sister circuits and commentators, have referred
to this as a ‘sliding scale’ test.”); Libertarian Party of New
Hampshire v. Gardner, 638 F.3d 6, 14 (1st Cir. 2011) (“We
review all of the First and Fourteenth Amendment claims
under the sliding scale approach announced by the Supreme
Court in Anderson ... and Burdick[.]”); Burdick, 504 U.S. at
434, 112 S.Ct. 2059 (“[T]he rigorousness of our inquiry into
the propriety of a state election law depends upon the extent
to which a challenged regulation burdens First and Fourteenth
Amendment rights.”).
Against that backdrop, the Court now turns to Plaintiffs’ claim
that the use of unmanned drop boxes by some Pennsylvania
counties, but not others, violates equal protection. As will
be discussed, Plaintiffs’ equal-protection claim fails at the
threshold, without even reaching Anderson-Burdick, because
Plaintiffs have not alleged or shown that Pennsylvania's
system will result in the dilution of votes in certain counties
and not others. Furthermore, even if the Court applies
Anderson-Burdick, the attenuated “burden” Plaintiffs have
identified—an increased risk of vote dilution created by
the use of unmanned drop boxes—is more than justified

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1460 Case 2:20-cv-01771-PP Filed 12/07/20 Page 35 of 64 Document 58-5

35

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

by Defendants’ important and precise interests in regulating
elections.

1. Plaintiffs have not shown that Pennsylvania treats
equivalent votes in different counties differently.
Plaintiffs’ equal-protection claim asserts differential
treatment on a theory of vote dilution. As far as the Court can
discern, this claim has two dimensions.
First, the main thrust concerns differential treatment as
between counties. Plaintiffs assert that some counties will
use drop boxes in certain ways (specifically, without inperson guards or in varying number and locations), while
others will not—resulting in differential treatment. See,
e.g., [ECF 551, p. 44 (“Plaintiffs assert (and have proven)
that Defendants have adopted, and intend to implement
in the General Election, an election regime that applies
Pennsylvania's Election Code in a way that treats the citizens
of Pennsylvania unequally depending on ... the location
where they happen to live: in some counties, voters will
have around-the-clock access to ‘satellite election offices’
at which they can deposit their vote, but in other counties,
voters will have no access at all to such drop boxes; in some
counties those drop boxes will be staffed and secure, but in
other counties drop boxes will be unmonitored and open to
tampering[.]”) ]; [Id. at p. 46 (“Defendants’ ongoing actions
and stated intentions ensure that votes will not be counted the
same as those voting in other counties, and in some instances,
in the same Congressional district. For instance, the harm
flowing from those actions will fall disproportionately on
the Republican candidates that bring suit here because many
Democrat-heavy counties have stated intentions to implement
the Secretary's unconstitutional ... ballot collection guidance,
and many Republican-heavy counties have stated intentions
to follow the Election Code as it is written.”) ].
*41 Second, although less clear, Plaintiffs’ equal-protection
claim may also concern broader differential treatment
between law-abiders and scofflaws. In other words, Plaintiffs
appear to suggest that Pennsylvania discriminates against all
law-abiding voters by adopting policies which tolerate an
unacceptable risk of a lawfully cast votes being diluted by
each unlawfully cast vote anywhere in Pennsylvania. See,
e.g., [ECF 509, p. 55 (“The use of unstaffed drop boxes ...
not only dilutes the weight of all qualified Pennsylvanian
electors, it curtails a sense of security in the voting process.”)
(emphasis in original) ]; [ECF 509 p. 68 (“There will be no

protection of one-person, one-vote in Pennsylvania, because
her policies ... allowing inconsistently located/used drop
boxes will result in illegal ballots being cast and counted with
legitimate votes[.]”) ].
As discussed below, both of these species of equal protection
fail because there is, in fact, no differential treatment here—
a necessary predicate for an equal-protection claim.
Initially, Plaintiffs “have to identify a burden before we
can weigh it.” Crawford, 553 U.S. at 205, 128 S.Ct. 1610
(Scalia, J. concurring). In the equal-protection context, this
means the plaintiff “must present evidence that s/he has been
treated differently from persons who are similarly situated.”
Renchenski v. Williams, 622 F.3d 315, 337 (3d Cir. 2010)
(cleaned up). And not just any differential treatment will
do. As discussed above, differences in treatment raise equalprotection concerns, and necessitate heightened scrutiny of
governmental interests, only if they burden a fundamental
right (such as the right to vote) or involve a suspect
classification based on a protected class. See Obama for Am.
v. Husted, 697 F.3d 423, 429 (6th Cir. 2012) (“If a plaintiff
alleges only that a state treated him or her differently than
similarly situated voters, without a corresponding burden on
the fundamental right to vote, a straightforward rational basis
standard of review should be used.”).
Plaintiffs argue that equal protection is implicated because
Pennsylvania has permitted counties to use drop boxes to
varying extents, and with varying degrees of security. Some,
like Delaware County, intend to use dozens of drop boxes.
See generally [ECF 549-28]. Many others will not use drop
boxes at all. See generally [ECF 504-1]. And among the
counties that do use drop boxes, some will staff them with
county officials, while others will monitor them only with
video surveillance or not at all. See generally [ECF 549-28].
In this respect, Plaintiffs argue that they suffer an equalprotection harm similar to that found by the Supreme Court
in Bush v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148 L.Ed.2d
388 (2000). There, the Supreme Court held that the Florida
Supreme Court violated equal protection when it “ratified”
election recount procedures that allowed different counties to
use “varying standards to determine what was a legal vote.”
Id. at 107, 121 S.Ct. 525. This meant that entirely equivalent
votes might be counted in one county but discounted
in another. See, e.g., id. (“Broward County used a more
forgiving standard than Palm Beach County, and uncovered
almost three times as many new votes, a result markedly

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1461 Case 2:20-cv-01771-PP Filed 12/07/20 Page 36 of 64 Document 58-5

36

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

disproportionate to the difference in population between
the counties.”). Given the absence of uniform, statewide
rules or standards to determine which votes counted, the
Court concluded that the patchwork recount scheme failed to
“satisfy the minimum requirement for nonarbitrary treatment
of voters necessary to secure the fundamental right [to vote].”
Id.
*42 While the Supreme Court expressly limited its holding
in Bush “to the present circumstances” of a standardless
“statewide recount under the authority of a single state judicial
officer,” id. at 109, 121 S.Ct. 525, a few courts have found
its reasoning to be persuasive as a broader principle of equal
protection. See Stewart v. Blackwell, 444 F.3d 843, 859 (6th
Cir. 2006) (“Somewhat more recently decided is Bush v.
Gore, ... which reiterated long established Equal Protection
principles.”); Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d
580, 598 (6th Cir. 2012) (“We agree with all of the parties
and the district court that the consent decree likely violates
the equal protection principle recognized in Bush v. Gore.”);
Pierce v. Allegheny Cty. Bd. of Elections, 324 F. Supp. 2d 684,
705 (W.D. Pa. 2003) (Conti, J.) (“As noted above, the court
finds that the facts presented raise a serious equal protection
claim under a theory similar to that espoused by the United
States Supreme Court in Bush v. Gore, supra.”); Black v.
McGuffage, 209 F. Supp. 2d 889, 899 (N.D. Ill. 2002) (“The
Court is certainly mindful of the limited holding of Bush.
However, we believe that situation presented by this case is
sufficiently related to the situation presented in Bush that the
holding should be the same.”).
Indeed, Bush’s core proposition—that a state may not take
the votes of two voters, similarly situated in all respects,
and, for no good reason, count the vote of one but not the
other—seems uncontroversial. It also seems reasonable (or at
least defensible) that this proposition should be extended to
situations where a state takes two equivalent votes and, for no
good reason, adopts procedures that greatly increase the risk
that one of them will not be counted—or perhaps gives more
weight to one over the other. See, e.g., Black, 209 F. Supp.
2d at 899 (“Plaintiffs in this case allege that the resulting
vote dilution, which was found to be unacceptable in Bush
without any evidence of a disproportionate impact on any
group delineated by traditional suspect criteria, is impacting
African American and Hispanic groups disproportionately....
Any voting system that arbitrarily and unnecessarily values
some votes over others cannot be constitutional.”); see also
Reynolds, 377 U.S. at 555, 84 S.Ct. 1362 (“[T]he right of
suffrage can be denied by a debasement or dilution of the

weight of a citizen's vote just as effectively as by wholly
prohibiting the free exercise of the franchise.”).
That is the sort of equal-protection claim Plaintiffs purport
to be asserting—a claim that voters in counties that use drop
boxes are subjected to a much higher risk of vote dilution than
those in other counties that do not. But that characterization
falls apart under scrutiny. Indeed, despite their assertions,
Plaintiffs have not actually alleged, let alone proven, that
votes cast in some counties are diluted by a greater amount
relative to votes cast in others. Rather, they have, at best,
shown only that events causing dilution are more likely to
occur in counties that use drop boxes. But, importantly, the
effect of those events will, by Plaintiffs’ own admission, be
felt by every voter across all of Pennsylvania. [ECF 509, p.
55. (“The use of unstaffed drop boxes places the security of
unknown hundreds (if not thousands) of ballots in jeopardy
of theft, destruction, and manipulation. This not only dilutes
the weight of all qualified Pennsylvanian electors, it curtails
a sense of security in the voting process.”) (citations omitted)
(emphasis in original) ]. Such dilution impacts the entire
electorate equally; not just voters in the county where it
occurs.
To illustrate this distinction, consider, for example, a
presidential election. The Court agrees with Plaintiffs that
the relevant electoral unit in such an election is “the entire
Commonwealth of Pennsylvania.” [ECF 551, p. 55 (“The
electoral unit in this election is the entire Commonwealth
of Pennsylvania.”) ]. Indeed, on election night, votes cast
in each of Pennsylvania's 67 counties will be canvassed,
counted, and ultimately added to a statewide vote total that
decides who wins Pennsylvania's 20 electoral votes. So, ask:
what is the dilutive impact of a hypothetical illegal vote cast
in Philadelphia during that election? Does it cause, in any
sense, an “unequal evaluation of ballots” cast in different
counties, Bush, 531 U.S. at 106, 121 S.Ct. 525, such that
lawful ballots cast in Philadelphia will be less likely to count,
worth less if they do, or otherwise disfavored when compared
to votes cast in other counties? The answer is evident—it does
not. Rather, the hypothetical illegal vote cast in Philadelphia
dilutes all lawful votes cast in the election anywhere in the
Commonwealth by the exact same amount.
*43 The same reasoning holds in elections that occur within
part of a state, rather than statewide. For example, consider
a hypothetical legislative district covering two counties—one
that uses drop boxes and one that does not. There may well be
a greater risk that illegal voting will occur in the county that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1462 Case 2:20-cv-01771-PP Filed 12/07/20 Page 37 of 64 Document 58-5

37

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

uses drop boxes. But any dilutive impact of those votes will
be felt equally by voters in both counties.
This is categorically different from the harm at issue in
Bush and cases like it. In Bush, Florida's arbitrary use of
different recount standards in different counties meant that the
state was counting equivalent ballots differently in different
counties, meaning that voters in some counties were more
likely to have their votes counted than those in others.
In Black v. McGuffage, an Illinois district-court case on
which Plaintiffs heavily rely, the plaintiffs alleged that the
type of voting machines used in some Illinois counties were
statistically much more likely to result in equivalent votes
being discounted at a much higher frequency in some counties
than others, and that the worst machines were those being
used in counties with high populations of minority groups.
209 F. Supp. 2d at 899. As a result, voters (and, specifically,
minority voters) were much more likely to have their votes
discounted, based just on the county in which they lived.
See id. (“As a result, voters in some counties are statistically
less likely to have their votes counted than voters in other
counties in the same state in the same election for the same
office. Similarly situated persons are treated differently in
an arbitrary manner.... In addition, the Plaintiffs in this case
allege that the resulting vote dilution ... is impacting African
American and Hispanic groups disproportionately.”).
Finally, Stewart v. Blackwell, another case cited by Plaintiffs,
was the same as Black—voters in counties that used punchcard voting were “approximately four times as likely not to
have their votes counted” as a voter in a different county
“using reliable electronic voting equipment.” 444 F.3d at 848.
What ties these cases together is that each of them involves
a state arbitrarily “valu[ing] one person's vote over that
of another,” Bush, 531 U.S. at 104-05, 121 S.Ct. 525,
by permitting counties to either apply different standards
to decide what votes count (Bush) or use different voting
technologies that create a great risk of votes being discounted
in one county that does not exist in others (Black and Stewart).
It is this sort of “differential treatment ... burden[ing] a
fundamental right” that forms the bedrock of equal protection.
Sullivan v. Benningfield, 920 F.3d 401, 409 (6th Cir. 2019).
Plaintiffs, in contrast, have shown no constitutionally
significant differential treatment at all.

Instead, as discussed, if Plaintiffs are correct that the use of
drop boxes increases the risk of vote dilution, all votes in the
relevant electoral unit—whether that is statewide, a subset
of the state, or a single county—face the same degree of
increased risk and dilution, regardless of which county is most
at fault for elevating that risk.
What Plaintiffs have really identified, then, are not uneven
risks of vote dilution—affecting voters in some counties
more than equivalent voters in others—but merely different
voting procedures in different counties that may contribute
different amounts of vote dilution distributed equally across
the electorate as a whole. The Court finds that this is not an
equal-protection issue.
*44 To be clear, the reason that there is no differential
treatment is solely based on Plaintiffs’ theory of harm in
this case. In the more “routine” vote-dilution cases, the state
imposes some restriction or direct impact on the plaintiff's
right to vote—that results in his or her vote being weighed
less (i.e., diluted) compared to those in other counties or
election districts. See Gill, 138 S. Ct. at 1930, (explaining that
“the holdings in Baker and Reynolds were expressly premised
on the understanding that the injuries giving rise to those
claims were individual and personal in nature, because the
claims were brought by voters who alleged facts showing
disadvantage to themselves as individuals”) (cleaned up). In
this case, though, Plaintiffs complain that the state is not
imposing a restriction on someone else's right to vote, which,
they say, raises the risk of fraud, which, if it occurs, could
dilute the value of Plaintiffs’ vote. The consequence of this
inverted theory of vote dilution is that all other votes are
diluted in the same way; all feel the same effect.
Finally, the Court's ruling in this regard is consistent with
the many courts that have recognized that counties may,
consistent with equal protection, employ entirely different
election procedures and voting systems within a single state.
See, e.g., Wexler v. Anderson, 452 F.3d 1226, 1231-33 (11th
Cir. 2006) (“Plaintiffs do not contend that equal protection
requires a state to employ a single kind of voting system
throughout the state. Indeed, local variety in voting systems
can be justified by concerns about cost, the potential value
of innovation, and so on.”) (cleaned up); Hendon v. N.C.
State Bd. of Elections, 710 F.2d 177, 181 (4th Cir. 1983)
(“A state may employ diverse methods of voting, and the
methods by which a voter casts his vote may vary throughout
the state.”); Short v. Brown, 893 F.3d 671, 679 (9th Cir.
2018) (“[T]he appellants’ reading of the Supreme Court's

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1463 Case 2:20-cv-01771-PP Filed 12/07/20 Page 38 of 64 Document 58-5

38

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

voting cases would essentially bar a state from implementing
any pilot program to increase voter turnout. Under their
theory, unless California foists a new system on all fiftyeight counties at once, it creates ‘unconstitutional votedilution’ in counties that do not participate in the pilot
plan. Nothing in the Constitution, the Supreme Court's
controlling precedent, or our case law suggests that we can
micromanage a state's election process to this degree.”); Fla.
State Conference of N.A.A.C.P. v. Browning, 569 F. Supp.
2d 1237, 1258 (N.D. Fla. 2008) (“[A]s with countless public
services delivered through Florida's political subdivisions—
such as law enforcement and education—resource disparities
are to some degree inevitable. They are not, however,
unconstitutional.”); Green Party of State of New York v.
Weiner, 216 F. Supp. 2d 176, 192 (S.D.N.Y. 2002) (“Even
in that situation, [Bush v. Gore] did not challenge, and
the Court did not question, the use of entirely different
technologies of voting in different parts of the state, even
in the same election.”); Paher v. Cegavske, No. 20-243,
2020 WL 2748301, at *9 (D. Nev. May 27, 2020) (“[I]t
cannot be contested that Clark County, which contains most
of Nevada's population—and likewise voters (69% of all
registered voters [ ] )—is differently situated than other
counties. Acknowledging this as a matter of generally known
(or judicially noticeable) fact and commonsense makes it
more than rational for Clark County to provide additional
accommodations to assist eligible voters.”); Ron Barber for
Cong. v. Bennett, No. 14-2489, 2014 WL 6694451, at *5 (D.
Ariz. Nov. 27, 2014) (“[T]he [Bush v. Gore] Court did not
invalidate different county systems regarding implementation
of election procedures.”); Tex. Democratic Party v. Williams,
No. 07-115, 2007 WL 9710211, at n.4 (W.D. Tex. Aug. 16,
2007) (“In Bush v. Gore, the Supreme Court specifically
noted: ‘The question before the Court is not whether local
entities, in the exercise of their expertise, may develop
different systems for implementing elections.’ ”).
*45 Equal protection does not demand the imposition of
“mechanical compartments of law all exactly alike.” Jackman
v. Rosenbaum Co., 260 U.S. 22, 31, 43 S.Ct. 9, 67 L.Ed. 107
(1922). Rather, “the Constitution is sufficiently flexible to
permit its requirements to be considered in relation to the ...
contexts in which they are invoked.” Merchants Nat'l Bank of
Mobile v. Dredge Gen. G. L. Gillespie, 663 F.2d 1338, 1343
(5th Cir. 1981). And in this context, “few (if any) electoral
systems could survive constitutional scrutiny if the use of
different voting mechanisms by counties offended the Equal
Protection Clause.” Trump v. Bullock, ––– F.3d ––––, ––––,
2020 WL 5810556, at *14 (D. Mont. Sept. 30, 2020).

The distinction—between differences in county election
procedures and differences in the treatment of votes or voters
between counties—is reflected in Bush itself. There, the
Supreme Court took pains to clarify that the question before
it was “not whether local entities, in the exercise of their
expertise, may develop different systems for implementing
elections.” Bush, 531 U.S. at 109, 121 S.Ct. 525; see also
id. at 134, 121 S.Ct. 525 (Souter, J. dissenting) (“It is true
that the Equal Protection Clause does not forbid the use of
a variety of voting mechanisms within a jurisdiction, even
though different mechanisms will have different levels of
effectiveness in recording voters’ intentions; local variety can
be justified by concerns about cost, the potential value of
innovation, and so on.”); Bullock, ––– F.3d at ––––, 2020 WL
5810556, at *14 (“[T]he Supreme Court was clear in Bush v.
Gore that the question was not whether local entities, in the
exercise of their expertise, may develop different systems for
implementing elections.”) (cleaned up).
Thus, coming back to the theory of Plaintiffs’ case, Plaintiffs
contend that Secretary Boockvar's drop-box guidance will
result in differences between counties and differing risks of
fraud. But the result of that uneven implementation will not
be votes in certain counties being valued less than others.
And the result won't be that voters who vote in person will
have their votes valued less, either. Instead, if Plaintiffs are
right, any unlawful votes will dilute all other lawful votes in
the same way. While certainly voter fraud and illegal voting
are bad, as a matter of equal protection, there is no unequal
treatment here, and thus no burden on Plaintiffs’ rights under
the Equal Protection Clause.
In addition to their equal-protection claim based on county
differences, Plaintiffs also appear to allude to a more
general type of equal-protection violation. They assert that
Pennsylvania comprises a single election unit. [ECF 551,
p. 55 (“The electoral unit in this election is the entire
Commonwealth of Pennsylvania.”) ]. They assert that they
intend to cast their ballots lawfully. See, e.g., [ECF 504-3,
¶ 4 (“As a Pennsylvania qualified registered elector, I have
always voted in-person at primary and general elections, and
I intend to vote in-person at the upcoming November 3, 2020
General Election.”) ]. And they assert that unmanned drop
boxes across the Commonwealth (regardless of the county)
will, on a statewide basis, dilute their votes. See, e.g., [id.
at ¶ 6 (“As a Pennsylvania qualified registered elector who
votes in-person, I do not want my in-person vote diluted
or cancelled by votes that are cast in a manner contrary

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1464 Case 2:20-cv-01771-PP Filed 12/07/20 Page 39 of 64 Document 58-5

39

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

to the requirements enacted by the Pennsylvania General
Assembly.”) ]. For example, if one “qualified elector” casts
a lawful ballot, but a fraudulent voter casts ten ballots, then
that elector's vote will, under Plaintiffs’ theory, be diluted by
a magnitude of ten—resulting in differential treatment.
*46 The problem with this theory is that there does not
appear to be any law to support it. Indeed, if this were a
true equal-protection problem, then it would transform every
violation of state election law (and, actually, every violation
of every law) into a potential federal equal-protection claim
requiring scrutiny of the government's “interest” in failing
to do more to stop illegal activity. This is not the law. To
the contrary, it is well-established that even violations of
state election laws by state officials, let alone violations
by unidentified third parties, do not give rise to federal
constitutional claims except in unusual circumstances. See
Shipley v. Chicago Bd. of Election Commissioners, 947 F.3d
1056, 1062 (7th Cir. 2020) (“A violation of state law does not
state a claim under § 1983, and, more specifically, a deliberate
violation of state election laws by state election officials
does not transgress against the Constitution.”) (cleaned up);
Martinez v. Colon, 54 F.3d 980, 989 (1st Cir. 1995) (“[T]he
Constitution is not an empty ledger awaiting the entry of an
aggrieved litigant's recitation of alleged state law violations—
no matter how egregious those violations may appear within
the local legal framework.”).
Thus, this type of equal-protection claim fails as a matter of
law, as well.

2. If Pennsylvania's “uneven” use of drop boxes indirectly
burdens the right to vote at all, that burden is slight, and
justified by important state interests.
Even assuming that Plaintiffs could establish unequal
treatment to state an equal-protection claim, their claim
nonetheless fails because the governmental interests here
outweigh any burden on the right to vote.
Initially, the Court finds that the appropriate level of
scrutiny is rational basis. Defendants’ failure to implement a
mandatory requirement to “man” drop boxes doesn't directly
infringe or burden Plaintiffs’ rights to vote at all. Indeed, as
discussed above in the context of standing, what Plaintiffs
characterize as the burden or harm here is really just an
ancillary ‘increased risk’ of a theoretical harm, the degree of
which has not been established with any empirical precision.

See Obama, 697 F.3d at 429 (“If a plaintiff alleges only that
a state treated him or her differently than similarly situated
voters, without a corresponding burden on the fundamental
right to vote, a straightforward rational basis standard of
review should be used.”); Brehm, 432 F. Supp. 3d at 310
(“Under this framework, election laws that impose no burden
on the right to vote are subject to rational-basis review.”).
On rational-basis review, the Secretary's guidance here
passes constitutional muster. Her guidance certainly provides
some flexibility in how counties may use drop boxes, but
the guidance overall is rationally related to a legitimate
governmental interest—namely, the implementation of drop
boxes in a secure manner, taking into account specific county
differences. That Plaintiffs feel the decisions and actions of
the Pennsylvania General Assembly, Secretary Boockvar, and
the county Defendants are insufficient to prevent fraud or
illegal voting is of no significance. “[R]ational-basis review
in equal protection analysis is not a license for courts to judge
the wisdom, fairness, or logic of legislative choices.” Heller v.
Doe by Doe, 509 U.S. 312, 319, 113 S.Ct. 2637, 125 L.Ed.2d
257 (1993).
As detailed above, Secretary Boockvar's guidance provides
lawful, comprehensive, and reasonable standards with respect
to (1) selecting the location of drop boxes, (2) drop-box
design criteria, (3) signage, (4) drop-box security measures,
and (5) drop-box ballot collection and chain of custody
procedures. Of particular note, with respect to ballot security,
the Secretary's guidance calls for the use of reasonably robust
measures like video surveillance, durable and tamperproof
design features, regular ballot collection every 24 hours,
chain-of-custody procedures to maintain ballot traceability,
and signage advising voters that third-party delivery is
prohibited, among other things.
To be sure, the Secretary's guidance doesn't insist on the use
of security personnel—though some counties have decided to
post security guards outside of drop boxes on their own. But
the Court can't say that either the Secretary's failure to provide
that requirement, or the decision of some counties to proceed
with drop boxes “unmanned,” is irrational. For example, the
evidence presented demonstrates that placing a security guard
outside of a drop box at all times is costly, particularly for
cash-strapped counties—at least $13 per hour or about $104
(8 hours) to $312 (24 hours) per day, according to Defendants’
expert, Professor Robert McNair. [ECF 549-11, p. 11] In the
context of a broader election system that detects and deters
fraud at many other stages of the voting process, and given

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1465 Case 2:20-cv-01771-PP Filed 12/07/20 Page 40 of 64 Document 58-5

40

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

that that there are also no equivalent security measures present
at U.S. postal mailboxes (which constitute an arguably more
tempting vehicle for the would-be ballot harvester), the Court
finds that the lack of any statewide requirement that all drop
boxes be manned or otherwise surveilled is reasonable, and
certainly rational.
*47 But even assuming Plaintiffs are right that their right
to vote here has been burdened (and thus a heightened
level of scrutiny must apply), that burden is slight and
cannot overcome Defendants’ important state interests under
the Anderson-Burdick framework. Indeed, courts routinely
find attenuated or ancillary burdens on the right to vote to
be “slight” or insignificant, even burdens considerably less
attenuated or ancillary than any burden arguably shown here.
See, e.g., Weber v. Shelley, 347 F.3d 1101, 1106 (9th Cir. 2003)
(“Under Burdick, the use of touchscreen voting systems is
not subject to strict scrutiny simply because this particular
balloting system may make the possibility of some kinds of
fraud more difficult to detect.”).11
11

See, also, e.g., Dudum v. Arntz, 640 F.3d 1098, 1117
(9th Cir. 2011) (“If the aspects of the City's restricted
IRV scheme Dudum challenges impose any burdens on
voters’ constitutional rights to vote, they are minimal
at best.”); Common Cause/Georgia v. Billups, 554
F.3d 1340, 1354–55 (11th Cir. 2009) (“The district
court determined that the burden imposed on Georgia
voters who lack photo identification was not undue or
significant, and we agree.... The NAACP and voters
are unable to direct this Court to any admissible and
reliable evidence that quantifies the extent and scope of
the burden imposed by the Georgia statute.”); Soules v.
Kauaians for Nukolii Campaign Comm., 849 F.2d 1176,
1183 (9th Cir. 1988) (“Appellants claim that Hawaii's
absentee voting law fails to prohibit ‘the solicitation,
examination and delivery of absentee ballots by persons
other than the voters’ and that such activities occurred
during the special election ... We agree with the district
court that the Hawaii absentee ballot statute and the
regulations adopted under it adequately protect the
secrecy and integrity of the ballot. Although Hawaii has
not adopted a regulation to prevent the delivery of ballots
by persons other than the voter, the Hawaii regulations
go into great detail in their elaboration of procedures to
prevent tampering with the ballots.”); McLain v. Meier,
637 F.2d 1159, 1167 (8th Cir. 1980) (“[A]lthough ballot
format has an effect on the fundamental right to vote,
the effect is somewhat attenuated.”); Nemes v. Bensinger,
––– F. Supp. 3d ––––, ––––, 2020 WL 3402345, at
*13 (W.D. Ky. June 18, 2020) (“The burden imposed

by the contraction to one polling place is modest, and
the identified groups are afforded various other means
under the voting plans to easily and effectively avoid
disenfranchisement. As already discussed, Defendants
have offered evidence of the substantial government
interest in implementing voting plans that provide for a
free and fair election while attempting to minimize the
spread of COVID-19.”); Paralyzed Veterans of Am. v.
McPherson, No. 06-4670, 2008 WL 4183981, at *22
(N.D. Cal. Sept. 9, 2008) (“Plaintiff Bohlke's listed
burdens rely on speculative risk or the ancillary effects of
third party assistance, but not on evidence of any concrete
harm. Such speculations or effects are insufficient
under Supreme Court and Ninth Circuit precedent to
demonstrate a severe burden on the fundamental right to
vote.”).

To begin with, application of the Anderson-Burdick
framework here presents something of a “square peg,
round hole” dilemma. After all, that test assumes there is
some constitutional injury to “weigh” against the state's
“important” regulatory interests in the first place. And without
differential treatment of votes or voters, there isn't any equalprotection injury for the Court to balance.
The Anderson-Burdick test is also ill-fitted to Plaintiffs’
claims for another reason. Typically, Anderson-Burdick is
invoked where the government takes some direct action to
burden or restrict a plaintiff's right to vote. Here, in contrast,
Plaintiffs complain that Pennsylvania has indirectly burdened
the right to vote through inaction—i.e., by not imposing
enough regulation to secure the voting process it has adopted,
which, Plaintiffs say, will allow third parties to vote in an
unlawful way, which, if it happens, will dilute (and thus
burden) the right to vote.
*48 This unusual causal daisy-chain makes it difficult to
apply Anderson-Burdick’s balancing approach. After all, it
is one thing to assess the government's interest in taking a
specific action that imposed burdens on the right to vote.
It is much less natural for a court to evaluate whether the
government had a good reason for not doing something
differently, or for failing to do more to prevent (or reduce the
risk of) misconduct by third parties that could burden the right
to vote.
To the extent Anderson-Burdick applies in such
circumstances, the appropriate course would, in this
Court's view, be to weigh any burden stemming from
the government's alleged failures against the government's
interest in enacting the broader election scheme it has

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1466 Case 2:20-cv-01771-PP Filed 12/07/20 Page 41 of 64 Document 58-5

41

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

erected, of which the challenged piece is usually only one
part. Focusing solely on the allegedly inadequate procedure
being challenged, such as the state's authorization of “drop
boxes” here, would ignore the fact that Election Code
provisions and regulations operate as part of a single,
complex organism balancing many competing interests, all of
which are “important” for purposes of the Anderson-Burdick
analysis. See, e.g., Crawford, 553 U.S. at 184, 128 S.Ct.
1610 (“deterring and detecting voter fraud”); Tedards v.
Ducey, 951 F.3d 1041, 1067 (9th Cir. 2020) (“voter turnout”);
Lunde v. Schultz, 221 F. Supp. 3d 1095, 1106 (S.D. Iowa
2014) (“expanding ballot access to nonparty candidates”);
Greenville Cnty. Republican Party Exec. Comm. v. South
Carolina, 824 F. Supp. 2d 655, 671 (D.S.C. 2011)
(“promoting voter participation in the electoral process”);
Mays v. LaRose, 951 F.3d 775, 787 (6th Cir. 2020) (“orderly
administration of elections”); Dudum, 640 F.3d at 1115
(“orderly administration of ... elections”); Paher v. Cegavske
, 457 F.Supp.3d 919, ––––, 2020 WL 2089813, at *7
(2020) (“protect[ing] the health and safety of ... voters” and
“safeguard[ing] the voting franchise”); Nemes, ––– F. Supp.
3d at ––––, 2020 WL 3402345, at *13 (“implementing voting
plans that provide for a free and fair election while attempting
to minimize the spread of COVID-19”).
Thus, on the “burden” side of the equation is Plaintiffs’ harm
of vote dilution predicated on a risk of fraud. As discussed
above in the context of lack of standing, that burden is slight,
factually, because it is based on largely speculative evidence
of voter fraud generally, anecdotal evidence of the mis-use of
certain drop boxes during the primary election, and worries
that the counties will not implement a “best practice” of
having poll workers or guards man the drop boxes. See [ECF
461, ¶¶ 63-82; ECF 504-2, ¶ 12; 504-3, ¶ 6; 504-4, ¶7;; ECF
504-6, ¶¶ 6-8; ECF 504-7, ¶¶ 5-9; ECF 504-9, 92:4-10; ECF
504-10, 60:3-61:10; 504-19, pp. 3, 16-18, 20 & Ex. D; ECF
504-25; ECF 504-49; ECF 509, p. 67; ECF 551, p. 34].
This somewhat scant evidence demonstrates, at most, an
increased risk of some election irregularities—which, as
many courts have held, does not impose a meaningful
burden under Anderson-Burdick. “Elections are, regrettably,
not always free from error,” Hutchinson v. Miller, 797 F.2d
1279, 1286–87 (4th Cir. 1986), let alone the “risk” of error.
In just about every election, votes are counted, or discounted,
when the state election code says they should not be. But the
Constitution “d[oes] not authorize federal courts to be state
election monitors.” Gamza v. Aguirre, 619 F.2d 449, 454 (5th
Cir. 1980). It is “not an empty ledger awaiting the entry of an

aggrieved litigant's recitation of alleged state law violations.”
Fournier v. Reardon, 160 F.3d 754, 757 (1st Cir. 1998). Nor
is it “an election fraud statute.” Minnesota Voters, 720 F.3d
at 1031.
*49 “Garden variety” election irregularities, let alone the
“risk” of such irregularities, are simply not a matter of
federal constitutional concern “even if they control the
outcome of the vote or election.” Bennett v. Yoshina, 140
F.3d 1218, 1226 (9th Cir. 1998). And as discussed above,
most often, even “a deliberate violation of state election laws
by state election officials does not transgress against the
Constitution.” Shipley, 947 F.3d at 1062. see, e.g., Lecky v.
Virginia State Bd. of Elections, 285 F. Supp. 3d 908, 919 (E.D.
Va. 2018) (“[E]ven assuming the Fredericksburg officials’
failure to provide provisional ballots amounted to a violation
of state law, it would not rise to the level of an equal protection
violation.”).
Compared, then, to Plaintiffs’ slight burden, the
Commonwealth has put forward reasonable, precise, and
sufficiently weighty interests that are undisputed and that can
be distilled into three general categories: (1) the benefits of
drop boxes, (2) the Commonwealth's interests in furthering its
overall election-security plan concerning drop boxes, and (3)
the interests inherent in the Commonwealth's general mail-in
ballot scheme.
The first category concerns the benefits of drop boxes
generally. Secretary Boockvar has pointed out the
Commonwealth's interests generally in using drop boxes—
including, (1) the increase of voter turnout, (2) the protection
of voters’ health in the midst of the ongoing pandemic, (3) the
increase of voter satisfaction, in light of ongoing U.S. Postal
Service issues, and (4) the reduction of costs for counties.
[ECF No. 547, at pp. 22-25; ECF No. 549-2, ¶¶ 36-39, 42-44].
Plaintiffs do not dispute any of these interests.
The second category of interests concerns the
Commonwealth's interests in implementing drop boxes with
appropriate and effective safety measures and protocols in
place. That is, Secretary Boockvar has, in her capacity as
the chief state official charged with overseeing elections,
issued uniform guidance to all counties regarding the use of
drop boxes, which is noted above. That guidance includes
(1) advising counties that the Election Code permits the
use of drop boxes, and (2) setting forth best practices that
the counties should “consider” with respect to their use.
Among other things, the Secretary advised that counties

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1467 Case 2:20-cv-01771-PP Filed 12/07/20 Page 42 of 64 Document 58-5

42

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

should maintain a traceable chain of custody for mail-in
and absentee ballots retrieved from drop boxes; utilize drop
boxes with various security features (e.g., anti-tampering
features, locks, video surveillance, and removal when the site
is closed or cannot be monitored); and designate sworn county
personnel to remove ballots from drop boxes. And evidence
suggests that the Secretary's deputies have emphasized these
best practices when queried by county officials. [ECF 549-32
(“Per our conversation, the list of items are things the county
must keep in mind if you are going to provide a box for voters
to return their ballots in person.”) ].
This guidance is lawful, reasonable, and non-discriminatory,
and so does not create any constitutional issue in its own
right. With this guidance, the Secretary has diminished the
risks tolerated by the legislature in adopting mail-in voting
and authorizing drop-boxes, by encouraging the counties to
adopt rather comprehensive security and chain-of-custody
procedures if they do elect to use drop boxes. Conversely,
the legislature's decision to leave the counties with ultimate
discretion when it comes to how, and to what extent,
to use drop boxes (as opposed to adopting a scheme in
which the Secretary could enforce compliance with her
guidance) is also reasonable, and justified by sufficiently
weighty governmental interests, given the many variations
in population, geography, local political culture, crime rates,
and resources. [ECF 549-9 (“There is no logical reason why
ballot receptacles such as drop boxes must be uniform across
different counties; particularly because the verification of the
voter is determined by election officials upon receipt of the
ballot. Counties vary in size and need. Across the country,
best practices dictate that counties determine what type of
box and size works for them. The needs of a large county
are very different from the needs of a smaller county.”); ECF
549-11, p. 9 (“Such variation between counties even within a
state makes sense, since the needs of different counties vary
and their use of drop boxes reflects those considerations (e.g.,
the geographic size of a county, the population of the county,
and the ease with which voters in the county can access other
locations to return mail-in ballots).”].
*50 The third category of interests is, more generally, the
interests of the Commonwealth in administering its overall
mail-in ballot regime, including the various security and
accountability measures inherent in that legislative plan.
Pennsylvania did not authorize drop boxes in a vacuum. Last
year, the Pennsylvania legislature “weigh[ed] the pros and
cons,” Weber, 347 F.3d at 1107, and adopted a broader system

of “no excuse” mail-in voting as part of the Commonwealth's
Election Code. As the Pennsylvania Supreme Court has now
confirmed, that system left room for counties to authorize
drop boxes and other satellite locations for returning ballots
to the county boards of elections. See Boockvar, ––– A.3d
at ––––, 2020 WL 5554644, at *9 (“[W]e need not belabor
our ultimate conclusion that the Election Code should be
interpreted to allow county boards of election to accept handdelivered mail-in ballots at locations other than their office
addresses including drop-boxes.”).
Inherent in any mail-in or absentee voting system is some
degree of increased risk of votes being cast in violation of
other provisions of the Election Code, regardless of whether
those ballots are returned to drop boxes, mailboxes, or some
other location. For example, there is simply no practical
way to police third party delivery of ballots to any mailbox
anywhere in the Commonwealth, where Plaintiffs do not
dispute that such ballots can be lawfully returned. It is also
likely that more (and perhaps many more) voters than usual
will be disenfranchised by technicalities this year, for failing
to comply with the procedural requirements associated with
mail-in ballots, such as the requirement that such ballots be
placed in “inner secrecy envelopes.”
But in enacting the “no excuse” mail-in voting system that
it did, the Pennsylvania legislature chose to tolerate the risks
inherent in that approach. And the key point is that the
legislature made that judgment in the context of erecting a
broader election scheme that authorizes other forms of voting
and has many other safeguards in place to catch or deter
fraud and other illegal voting practices. These safeguards
include voter registration; a mail-in ballot application and
identity verification process, 25 P.S. §§ 3146.2, 3150.12; a
system for tracking receipt of mail-in ballots, 25 P.S. §§
3146.3(a), 3150.13(a); and, perhaps most important of all, a
pre-canvassing and canvassing process during which mailin ballots are validated before being counted. In addition,
Pennsylvania law also seeks to deter and punish fraud by
imposing criminal penalties for unlawful voting, 25 P.S §
3533; voting twice in one election, 25 P.S § 3535; forging
or destroying ballots, 25 P.S § 3517; unlawful possession or
counterfeiting of ballots 25 P.S § 3516; and much more of the
conduct Plaintiffs fear, see 25 P.S. § 3501, et seq.
In this larger context, the Court cannot say that the
balance Pennsylvania struck across the Election Code was
unreasonable, illegitimate, or otherwise not “sufficiently
weighty to justify,” Crawford, 553 U.S. at 191, 128 S.Ct.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1468 Case 2:20-cv-01771-PP Filed 12/07/20 Page 43 of 64 Document 58-5

43

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

1610, whatever ancillary risks may be associated with the
use of drop boxes, or with allowing counties to exercise
discretion in that regard. Pennsylvania may balance the many
important and often contradictory interests at play in the
democratic process however it wishes, and it must be free to
do so “without worrying that a rogue district judge might later
accuse it of drawing lines unwisely.” Abbott, 961 F.3d at 407.
*51 Thus, balancing the slight burden of Plaintiffs’ claim of
dilution against the categories of interests above, the Court
finds that the Commonwealth and Defendants’ interests in
administering a comprehensive county-based mail-in ballot
plan, while both promoting voting and minimizing fraud,
are sufficiently “weighty,” reasonable, and justified. Notably,
in weighing the burdens and interests at issue, the Court is
mindful of its limited role, and careful to not intrude on what is
“quintessentially a legislative judgment.” Griffin, 385 F.3d at
1131. “[I]t is the job of democratically-elected representatives
to weigh the pros and cons of various balloting systems.”
Weber, 347 F.3d at 1106. “So long as their choice is reasonable
and neutral, it is free from judicial second-guessing.” Id.; see
also Abbott, 961 at 407, (“That the line might have been
drawn differently ... is a matter for legislative, rather than
judicial, consideration.”) (cleaned up); Trinsey v. Com. of Pa.,
941 F.2d 224, 235 (3d Cir. 1991) (“We take no position on the
balancing of the respective interests in this situation. That is
a function for which the legislature is uniquely fitted.”).
Thus, even under the Anderson-Burdick framework, the Court
finds that Plaintiffs’ constitutional challenge fails as a matter
of law.
B. Pennsylvania's use of drop boxes does not violate
federal due process.
In addition to their equal-protection challenge to the use
of drop boxes, Plaintiffs also appear to argue that the use
of unmanned drop boxes violates substantive due process
protected by the 14th Amendment. This argument is just a
variation on their equal-protection argument—i.e., the uneven
use of drop boxes will work a “patent and fundamental
unfairness” in violation of substantive due process principles.
See Griffin v. Burns, 570 F.2d 1065, 1077 (1st Cir. 1978)
(substantive due process rights are violated “[i]f the election
process itself reaches the point of patent and fundamental
unfairness[.]”). The analysis for this claim is the same as that
for equal protection, and thus it fails for the same reasons.
But beyond that, this claim demands even stricter proof. Such
a claim exists in only the most extraordinary circumstances.

See Nolles v. State Comm. for Reorganization of Sch.
Districts, 524 F.3d 892, 898 (8th Cir. 2008) (“A canvass
of substantive due process cases related to voting rights
reveals that voters can challenge a state election procedure
in federal court only in limited circumstances, such as
when the complained of conduct discriminates against a
discrete group of voters, when election officials refuse to
hold an election though required by state law, resulting in a
complete disenfranchisement, or when the willful and illegal
conduct of election officials results in fraudulently obtained or
fundamentally unfair voting results.”) (cleaned up); Yoshina,
140 F.3d at 1226 (“We have drawn a distinction between
‘garden variety’ election irregularities and a pervasive error
that undermines the integrity of the vote. In general, garden
variety election irregularities do not violate the Due Process
Clause, even if they control the outcome of the vote or
election.”) (citation omitted); Bennett v. Mollis, 590 F. Supp.
2d 273, 278 (D.R.I. 2008) (“Before an election error becomes
a key that unlocks the restraints on the federal court's authority
to act, the Plaintiffs must demonstrate either an intentional
election fraud or an unintentional error resulting in broadgauge unfairness.”).
Indeed, “only the most egregious official conduct can be said
to be arbitrary in the constitutional sense”—the “executive
action must be so ill-conceived or malicious that it ‘shocks
the conscience.’ ” Miller v. City of Phila., 174 F.3d 368, 375
(3d Cir. 1999) (cleaned up).
Based on the slight burden imposed here, and the
Commonwealth's interests in their overall county specific
voting regime, which includes a host of other fraudprevention measures, the Court finds that the drop-box claim
falls short of the standard of substantive due process.
III. Defendants and Intervenors are entitled to summary
judgment on Plaintiffs’ signature-comparison claims.
*52 Plaintiffs’ next claim concerns whether the Secretary's
recent guidance on signature comparison violates the federal
Constitution. Plaintiffs frame their claims pertaining to
signature comparison in two ways—one based on due process
and the other based on equal protection.
Plaintiffs initially assert that the Election Code requires a
signature comparison for mail-in and absentee applications
and ballots. Thus, according to Plaintiffs, Secretary
Boockvar's guidance, which says the opposite, is creating
unconstitutional vote dilution, in violation of due-process
principles—i.e., certain unlawful, unverified ballots will

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1469 Case 2:20-cv-01771-PP Filed 12/07/20 Page 44 of 64 Document 58-5

44

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

now be counted, thereby diluting the lawful ones cast by
other voters (such as in-person voters, whose signatures are
verified). Plaintiffs also appear to argue more generally that
absent signature comparison, there is a heightened risk of
voter fraud, and therefore a heightened risk of vote dilution
of lawful votes.
In addition to due process, Plaintiffs argue that the
guidance violates equal-protection principles—first, by
counties engaging in a patchwork of procedures (where some
counties intend to do a signature comparison for mail-in
ballots, while others do not); and second, by implementing
different standards between mail-in ballots and in-person
ones.
In contrast, Defendants and Intervenors take the position
that state law does not require signature comparison, and for
good reason. According to them, requiring such comparisons
is fraught with trouble, as signatures change over time and
elections officials are not signature-analysis experts. This
leaves open the possibility for arbitrary and discriminatory
application that could result in the disenfranchisement of
valid voters.
For the reasons that follow, the Court will dismiss the
signature-comparison claims and enter judgment in favor
of Defendants. A plain reading of the Election Code
demonstrates that it does not impose a signature-comparison
requirement for mail-in ballots and applications, and thus
Plaintiffs’ vote-dilution claim sounding in due process fails
at the outset. Further, the heightened risk of fraud resulting
from a lack of signature comparison, alone, does not rise
to the level of a federal constitutional violation. Finally, the
equal-protection claims fail because there are sound reasons
for the different treatment of in-person ballots versus mailin ballots; and any potential burdens on the right to vote are
outweighed by the state's interests in their various election
security measures.
A. The Election Code does not require signature
comparison for mail-in and absentee ballots or ballot
applications.
Plaintiffs’ federal-constitutional claims in Count I of their
Second Amended Complaint are partially based on the
Secretary's guidance violating state law. That is, Plaintiffs’
first theory is that by the Secretary violating state law,
unlawful votes are counted and thus lawfully cast votes are
diluted. According to Plaintiffs, this violates the 1st and 14th
Amendments, as well as the Elections Clause (the latter of

which requires the legislature, not an executive, to issue
election laws).12
12

The parties do not specifically brief the elements of an
Elections-Clause claim. This is typically a claim brought
by a state legislature, and the Court has doubts that
this is a viable theory for Plaintiffs to assert. See Lance
v. Coffman, 549 U.S. 437, 442, 127 S.Ct. 1194, 167
L.Ed.2d 29 (2007). Regardless, if state law does not
require signature comparison, then there is no difference
between the Secretary's guidance and the Election Code,
and the Elections-Clause claim necessarily fails.

*53 Thus, a necessary predicate for these constitutional
claims is whether the Election Code mandates signature
comparison for mail-in and absentee ballots. If it doesn't,
as the Secretary's guidance advises, then there can be no
vote dilution as between lawful and unlawful votes, nor a
usurpation of the legislature's authority in violation of the
Elections Clause.
After carefully considering the parties’ arguments and
the relevant law, the Court finds that the plain language
of the Election Code imposes no requirement for
signature comparison for mail-in and absentee ballots and
applications.13 In other words, the Secretary's guidance is
consistent with the Election Code, and creates no votedilution problems.14
13

Several Defendants and Intervenors have asked this
Court to abstain from deciding this issue on the basis
of Pullman. As this Court previously discussed, a court
can abstain under Pullman if three factors are met:
“(1) [the dispute] requires interpretation of “unsettled
questions of state law,”; (2) permitting resolution of
the unsettled state-law questions by state courts would
“obviate the need for, or substantially narrow the scope
of adjudication of the constitutional claims”; and (3) an
“erroneous construction of state law would be disruptive
of important state policies[.]” ” [ECF 409, p. 3 (quoting
Chez Sez, 945 F.2d at 631) ]. But if, on the other
hand, the answer to the state law dispute is “clear and
unmistakable,” abstention is not warranted. [Id. at p.
15 (citing Chez Sez, 945 F.2d at 632) ]. Here, the
Court concludes (as discussed below) that the Election
Code is clear that signature comparison is not required
and further, that Plaintiffs’ competing interpretation is
not plausible. As such, the Court cannot abstain under
Pullman.
The Pullman analysis does not change simply because
Secretary Boockvar has filed a “King's Bench” petition

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1470 Case 2:20-cv-01771-PP Filed 12/07/20 Page 45 of 64 Document 58-5

45

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

14

with the Pennsylvania Supreme Court, requesting that
court to clarify whether the Election Code mandates
signature comparison of mail-in and absentee ballots and
applications. [ECF 556, p. 11; ECF 557]. The fact that
such a petition was filed does not change this Court's
conclusion that the Election Code is clear. The Pullman
factors remain the same. And they are not met here.

information on the declaration, is tantamount to signature
comparison. The Court disagrees, for at least three reasons.

The Secretary's September 11, 2020, guidance, stated
that the “Pennsylvania Election Code does not authorize
the county board of elections to set aside returned
absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” [ECF 504-24,
p. 3, § 3]. Similarly, the Secretary's September 28,
2020, guidance stated that “Election Code does not
permit county election officials to reject applications or
voted ballots based solely on signature analysis. ... No
challenges may be made to mail-in and absentee ballots
at any time based on signature analysis.” [ECF 504-25,
p. 9, § 5.2].

When interpreting a statute enacted by the Pennsylvania
General Assembly, courts apply Pennsylvania's Statutory
Construction Act, 1 Pa. C.S. §§ 1501-1991. And as the Act
instructs, the “object of all interpretation and construction
of statutes is to ascertain and effectuate the intention of the
General Assembly.” 1 Pa C.S. § 1921(a). If the words of
the statute are clear and unambiguous, the letter of the law
applies. Id. at § 1921(b). Otherwise, courts may consider
a variety of factors to determine the legislature's intent,
including “other statutes upon the same or similar subjects”
and “[t]he consequences of a particular interpretation.” Id. at
§ 1921(c)(5)-(6).

Plaintiffs, in advancing their claim, rely on section 3146.8(g)
(3)-(7) of the Election Code to assert that the Code requires
counties to “verify” the signatures on mail-in and absentee
ballots (i.e., examine the signatures to determine whether
they are authentic). Plaintiffs specifically point to section
3146.8(g)(3) as requiring this signature verification. [ECF
509, pp. 17-18].
Section 3146.8(g)(3) states:
When the county board meets to pre-canvass or canvass
absentee ballots and mail-in ballots ... the board shall
examine the declaration on the envelope of each ballot ...
and shall compare the information thereon with that
contained in the “Registered Absentee and Mail-in Voters
File,” the absentee voters’ list and/or the “Military Veterans
and Emergency Civilians Absentee Voters File,” whichever
is applicable. If the county board has verified the proof of
identification as required under this act and is satisfied that
the declaration is sufficient and the information contained
in the “Registered Absentee and Mail-in Voters File,” the
absentee voters’ list and/or the “Military Veterans and
Emergency Civilians Absentee Voters File” verifies his
right to vote, the county board shall provide a list of the
names of electors whose absentee ballots or mail-in ballots
are to be pre-canvassed or canvassed.
*54 25 P.S. § 3146.8(g)(3).
According to Plaintiffs, Section 3146.8(g)(3)’s requirement
to verify the proof of identification, and compare the

First, nowhere does the plain language of the statute require
signature comparison as part of the verification analysis of the
ballots.

Section 3146.8(g)(3) does not expressly require any signature
verification or signature comparison. 25 P.S. § 3146.8(g)
(3). It instead requires election officials to (1) “examine the
declaration on the envelope of each ballot,” (2) “compare
the information thereon with that contained in the ... ‘Voters
file’ [or] the absentee voters’ list,” and (3) if “the county board
has [a] verified the proof of identification as required under
this act and [b] is satisfied that the declaration is sufficient and
the information contained in the [Voter's file] ... verifies his
right to vote,” the election official shall include the ballot to
be counted. Id.
Under the express terms of the statute, then, the information
to be “verified” is the “proof of identification.” Id. The
Election Code defines “proof of identification” as the mailin/absentee voter's driver's license number, last four digits of
their Social Security number, or a specifically approved form
of identification. 25 P.S. § 2602(z.5)(3)(i)-(iv).15 The only
other “verification” the election official must conduct is to
determine whether “the information contained in the [Voter's
file] ... verifies his right to vote.”
15

The Election Code's definition of “proof of
identification” in full provides:
The words “proof of identification” shall mean ... For
a qualified absentee elector ... or a qualified mail-in
elector ...:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1471 Case 2:20-cv-01771-PP Filed 12/07/20 Page 46 of 64 Document 58-5

46

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680
i. in the case of an elector who has been issued a current
and valid driver's license, the elector's driver's license
number;
ii. in the case of an elector who has not been issued a
current and valid driver's license, the last four digits of
the elector's Social Security number;
iii. in the case of an elector who has a religious
objection to being photographed, a copy of a
document that satisfies paragraph (1) [i.e., “a validwithout-photo driver's license or a valid-withoutphoto identification card issued by the Department of
Transportation”]; or
iv. in the case of an elector who has not been issued
a current and valid driver's license or Social Security
number, a copy of a document that satisfies paragraph
(2) [i.e., “a document that shows the name of the
individual to whom the document was issued and
the name substantially conforms to the name of the
individual as it appears in the district register; shows
a photograph of the individual to whom the document
was issued; includes an expiration date and is not
expired, except (A) ... or (B) ...; and was issued by”
the federal, state, or municipal government, or an
“accredited Pennsylvania public or private institution
of higher learning [or] “a Pennsylvania are facility.”].
25 P.S. § 2602(z.5)(3).

*55 Nowhere does this provision require the election
official to compare and verify the authenticity of the elector's
signature. In fact, the word “signature” is absent from the
provision. It is true that the elector must fill out and sign
the declaration included on the ballot. 25 P.S. §§ 3146.6(a),
3150.16(a). However, while section 3146.8(g)(3) instructs the
election official to “examine the declaration ... and compare
the information thereon with that contained in the [Voter's
file],” the provision clarifies that this is so the election official
can be “satisfied that the declaration is sufficient.” 25 P.S.
§ 3146.8(g)(3). In other words, the election official must be
“satisfied” that the declaration is “fill[ed] out, date[d] and
sign[ed],” as required by sections 3150.16(a) and 3146.6(a)
of the Election Code. Notably absent is any instruction to
verify the signature and set aside the ballot if the election
official believes the signature to be non-genuine. There is an
obvious difference between checking to see if a signature was
provided at all, and checking to see if the provided signature is
sufficiently authentic. Only the former is referred to in section
3146.8(g)(3).
Second, beyond the plain language of the statute, other
canons of construction compel the Court's interpretation.
When interpreting statutes passed by the General Assembly,
Pennsylvania law instructs courts to look at other aspects of

the statute for context. See 1 Pa. C.S. § 1921(c)(5) (“When
the words of the statute are not explicit, the intention of the
General Assembly may be ascertained by considering ... other
statutes upon the same or similar subjects.”); O'Rourke v.
Commonwealth, 566 Pa. 161, 778 A.2d 1194, 1201 (2001)
(“The cardinal rule of all statutory construction is to ascertain
and effectuate the intent of the Legislature. To accomplish that
goal, we should not interpret statutory words in isolation, but
must read them with reference to the context in which they
appear.” (citation omitted)).
Context here is important because the General Assembly
mandated signature comparison for in-person voting
elsewhere in the Election Code—thus evidencing its intention
not to require such comparison for mail-in ballots. See Fonner
v. Shandon, Inc., 555 Pa. 370, 724 A.2d 903, 907 (1999)
(“[W]here a section of a statute contains a given provision,
the omission of such a provision from a similar section is
significant to show a different legislative intent.”) (citation
omitted).
In addressing in-person voting, the General Assembly
explicitly instructs that the election official shall, after
receiving the in-person elector's voter certificate, immediately
“compare the elector's signature on his voter's certificate
with his signature in the district register. If, upon such
comparison, the signature upon the voter's certificate appears
to be genuine, the elector who has signed the certificate shall,
if otherwise qualified, be permitted to vote: Provided, That
if the signature on the voter's certificate, as compared with
the signature as recorded in the district register, shall not be
deemed authentic by any of the election officers, such elector
shall not be denied the right to vote for that reason, but shall
be considered challenged as to identity and required to [cure
the deficiency].” 25 P.S. § 3050(a.3)(2) (emphasis added).
Elsewhere, the General Assembly also explicitly accounts
for signature comparison of in-person voters: “[I]f it is
determined that the individual was registered and entitled
to vote at the election district where the ballot was cast,
the county board of elections shall compare the signature
on the provisional ballot envelope with the signature on
the elector's registration form and, if the signatures are
determined to be genuine, shall count the ballot if the
county board of elections confirms that the individual did
not cast any other ballot, including an absentee ballot, in the
election. ... [But a] provisional ballot shall not be counted
if ... the signature[s] required ... are either not genuine
or are not executed by the same individual ...” 25 P.S. §

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1472 Case 2:20-cv-01771-PP Filed 12/07/20 Page 47 of 64 Document 58-5

47

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

3050(a.4)(5)(i)-(ii) (emphasis added); see also 25 P.S. § 2936
(“[When reviewing nomination papers], the Secretary of the
Commonwealth or the county board of elections, although
not hereby required so to do, may question the genuineness
of any signature or signatures appearing thereon, and if
he or it shall thereupon find that any such signature or
signatures are not genuine, such signature or signatures shall
be disregarded[.]” (emphasis added)).
*56 Clearly then, the General Assembly, in enacting the
Election Code, knew that it could impose a signaturecomparison requirement that requires an analysis to
determine whether a signature is “genuine.” And when
that was its intent, the General Assembly explicitly and
unequivocally imposed that requirement. It is thus telling,
from a statutory construction standpoint, that no such explicit
requirement is imposed for returned mail-in or absentee
ballots. Indeed, the General Assembly is aware—and in fact,
requires—that a voter must sign their application for an
absentee or mail-in ballot, and must sign the declaration
on their returned ballot. 25 P.S. §§ 3146.2(d) (absenteeballot application), 3150.12(c) (mail-in-ballot application),
3146.6(a) (absentee-voter declaration), 3150.16(a) (mail-in
voter declaration). Despite this, the General Assembly did
not mention a signature-comparison requirement for returned
absentee and mail-in ballots.
The Court concludes from this context that this is because the
General Assembly did not intend for such a requirement. See,
e.g., Mishoe v. Erie Ins. Co., 573 Pa. 267, 824 A.2d 1153,
1155 (2003) (“In arriving at our conclusion that the foregoing
language does not provide for the right to a jury trial, we relied
on three criteria. First, we put substantial emphasis on the
fact that the PHRA was silent regarding the right to a jury trial.
As we explained, ‘the General Assembly is well aware of its
ability to grant a jury trial in its legislative pronouncements,’
and therefore, ‘we can presume that the General Assembly's
express granting of trial by jury in some enactments means
that it did not intend to permit for a jury trial under the PHRA.’
” (cleaned up) (emphasis added)); Holland v. Marcy, 584
Pa. 195, 883 A.2d 449, 456, n.15 (2005) (“We additionally
note that the legislature, in fact, did specify clearly when
it intended the choice of one individual to bind others. In
every other category addressed by Section 1705(a) other
than (a)(5) which addressed uninsured owners, the General
Assembly specifically referenced the fact that the decision
of the named insured ... binds other household members....
Similar reference to the ability of the uninsured owner's

deemed choice to affect the rights of household members is
conspicuously missing from Section 1705(a)(5).”).
Accordingly, the Court finds that the General Assembly's
decision not to expressly refer to signature comparisons for
mail-in ballots, when it did so elsewhere, is significant.
Third, this Court is mindful that Pennsylvania's election
statutes are to be construed in a manner that does not risk
disenfranchising voters. See, e.g., 1 Pa. C.S. § 1922(3) (“In
ascertaining the intention of the General Assembly in the
enactment of a statute the following presumptions, among
others, may be used: ... That the General Assembly does not
intend to violate the Constitution of the United States or of
this Commonwealth.”); id. at § 1921(c)(6) (in interpreting
a statute, the court may consider “[t]he consequences of a
particular interpretation”).
As the Pennsylvania Supreme Court emphasized last month,
“[I]t is well-settled that, although election laws must be
strictly construed to prevent fraud, they ordinarily will be
construed liberally in favor of the right to vote. Indeed,
our goal must be to enfranchise and not to disenfranchise
the electorate.” Boockvar, ––– A.3d at ––––, 2020 WL
5554644, at *9 (cleaned up); see also id. (“[A]lthough both
Respondent and the Caucus offer a reasonable interpretation
of Section 3150.16(a) as it operates within the Election Code,
their interpretation restricts voters’ rights, as opposed to
the reasonable interpretation tendered by Petitioner and the
Secretary. The law, therefore, militates in favor of this Court
construing the Election Code in a manner consistent with the
view of Petitioner and the Secretary, as this construction of the
Code favors the fundamental right to vote and enfranchises,
rather than disenfranchises, the electorate.”).
*57 Here, imposing a signature-comparison requirement as
to mail-in and absentee ballots runs the risk of restricting
voters’ rights. This is so because election officials, unstudied
and untested in signature verification, would have to
subjectively analyze and compare signatures, which as
discussed in greater detail below, is potentially problematic.16
[ECF 549-2, p. 19, ¶ 68]; [ECF 549-9, p. 20, ¶ 64].
And perhaps more importantly, even assuming an adequate,
universal standard is implemented, mail-in and absentee
voters whose signatures were “rejected” would, unlike inperson voters, be unable to cure the purported error. See
25 P.S. § 3146.8(a) (stating that in-person and absentee
ballots “shall [be safely kept] in sealed or locked containers
until they are to be canvassed by the county board of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1473 Case 2:20-cv-01771-PP Filed 12/07/20 Page 48 of 64 Document 58-5

48

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

elections,” which § 3146.8(g)(1.1)-(2) states is no earlier
than election day); Boockvar, ––– A.3d at ––––, 2020 WL
5554644, at *20 (“[A]lthough the Election Code provides
the procedures for casting and counting a vote by mail, it
does not provide for the ‘notice and opportunity to cure’
procedure sought by Petitioner. To the extent that a voter is at
risk for having his or her ballot rejected due to minor errors
made in contravention of those requirements, we agree that
the decision to provide a ‘notice and opportunity to cure’
procedure to alleviate that risk is one best suited for the
Legislature.”). As discussed in more detail below, unlike inperson voters, whose signatures are verified in their presence,
mail-in and absentee voters’ signatures would be verified at a
later date outside the presence of the voter. See generally 25
P.S. § 3146.8(a), (g) (requiring mail-in and absentee ballots
to be kept secured in a sealed container until Election Day).
Unbeknownst to the voter, then, and without an opportunity
to remedy the purported error, these mail-in and absentee
voters may not have their votes counted. Based on this risk
of disenfranchisement, which the Court must consider in
interpreting the statute, the Court cannot conclude that this
was the General Assembly's intention.
16

While election officials must engage in signature
comparison for in-person voters, that requirement is
explicitly required by the Election Code, unlike for mailin ballots. 25 P.S. § 3050(a.3)(2). And as discussed
below, in-person voters, unlike mail-in voters, are
immediately notified if their signatures are deficient.

The Court is not persuaded by Plaintiffs’ arguments to the
contrary.
Plaintiffs argue that section 3146.8(g)(5)-(7) provides a
voter, whose ballot-signature was rejected, notice and an
opportunity to cure the signature deficiency. [ECF 509, pp.
13, 18, 50]. That section, however, refers to when a person
raises a specific challenge to a specific ballot or application on
the grounds that the elector is not a “qualified elector.” 25 P.S.
§ 3146.8(g)(4) (stating that mail-in and absentee ballots shall
be counted unless they were challenged under §§ 3146.2b
or 3150.12b, which allow challenges on the grounds that
the elector applying for a mail-in or absentee ballot wasn't
qualified). Thus, the “challenges” referenced in § 3146.8(g)
(5)-(7) refer to a voter's qualifications to vote, not a signature
verification.
Plaintiffs similarly argue that section 3146.8(h) provides
mail-in voters notice and opportunity to cure signature
deficiencies. [ECF 552, p. 60]. But that section relates to

“those absentee ballots or mail-in ballots for which proof
of identification has not been received or could not be
verified.” 25 P.S. § 3146.8(h). As discussed above, “proof
of identification” is a defined term, and includes the voter's
driver's license number, last four digits of their Social Security
number, or a specifically approved form of identification.
25 P.S. § 2602(z.5)(3)(i)-(iv). Not included is the voter's
signature.17
17

Plaintiffs also argue that signature comparison for mailin and absentee ballots is supported by historical case
law. [ECF 552, pp. 58-59]. Plaintiffs cite to two cases
from the 1960s that the Court of Common Pleas decided.
[Id.]. The first, Appeal of Fogleman, concluded that
under the then-applicable election law, an absentee voter
had to sign a declaration to show that he was a proper
resident who had not already voted in that election. 36 Pa.
D. & C.2d 426, 427 (Pa. Ct. Comm. Pl. 1964). Regarding
the voter's signature, the court simply stated, “[i]f the
elector fails or refuses to attach his or her signature,
then such elector has not completed the declaration as
required by law of all voters.” Id. Thus, no signature
comparison or verification was implicated there; rather,
the court simply stated that the declaration must be
signed (i.e., completed). The second case Plaintiffs cite,
In re Canvass of Absentee Ballots of Gen. Election
[ECF 552, pp. 58-59], arose from individual, postelection challenges to 46 individual absentee ballots.
39 Pa. D. & C.2d 429, 430 (Pa. Ct. Comm. Pl. 1965).
Thus, a universal and mandatory signature-comparison
requirement was not at issue there, unlike what Plaintiffs
contest here. This Court finds neither case persuasive.

*58 At bottom, Plaintiffs request this Court to impose
a requirement—signature comparison—that the General
Assembly chose not to impose. Section 3146.8(g)(3) does not
mention or require signature comparison. The Court will not
write it into the statute.
For the same reasons that the Election Code does not
impose a signature-comparison requirement for mail-in and
absentee ballots, the Election Code does not impose a
signature-comparison requirement for mail-in and absentee
ballot applications. While the General Assembly imposed
a requirement that the application be signed, there is no
mention of a requirement that the signature be verified,
much less that the application be rejected based solely
on such verification. 25 P.S. §§ 3146.2(d) (absentee-ballot
application), 3150.12(c) (mail-in-ballot application). Again,
finding no explicit instructions for signature comparison here
(unlike elsewhere in the Code), the Court concludes that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1474 Case 2:20-cv-01771-PP Filed 12/07/20 Page 49 of 64 Document 58-5

49

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

the General Assembly chose not to include a signaturecomparison requirement for ballot applications.

fundamental right to vote, resulting in a due-process violation,
and thus strict scrutiny applies. The Court disagrees.

The Court again finds Plaintiffs’ arguments to the contrary
unavailing. Plaintiffs argue that “there is no other proof
of identification required to be submitted with the ballot
applications,” and thus, a signature comparison must be
required. [ECF 509, p. 16].

*59 As discussed above in the context of Plaintiffs’
drop-box claim, Plaintiffs’ claim here simply does not rise
to the high level for a substantive due process claim.
To violate substantive due process in the voting-rights
context, the infringements are much more severe. Only
in extraordinary circumstances will there be “patent and
fundamental unfairness” that causes a constitutional harm.
See Bonas v. Town of North Smithfield, 265 F.3d 69, 74 (1st
Cir. 2001); Shannon v. Jacobowitz, 394 F.3d 90, 94 (2d Cir.
2005).

But the Election Code expressly requires the applicant to
include several pieces of identifying information, including
their name, mailing address, and date of birth. 25 P.S. §§
3146.2(b), 3150.12(b). And after receiving the applicant's
application, the election official must “verify[ ] the proof
of identification [a defined term as discussed above] and
compar[e] the information provided on the application with
the information contained on the applicant's permanent
registration card.”18 Id. at §§ 3146.2b(c), 3150.12b(a). Thus,
contrary to Plaintiffs’ argument, the General Assembly
provided for certain methods of identification as to ballot
applications. Signature verification isn't one of them.
18

This identifying information on a ballot application
includes much of the same information expressly listed
for what a voter must provide in initially registering
to vote. 25 Pa. C.S.A. § 1327(a) (stating that the
“official voter registration application” shall request the
applicant's: full name, address of residence (and mailing
address if different), and date of birth).

For these reasons, the Court concludes that the Election
Code does not impose a signature-comparison requirement
for absentee and mail-in ballots and applications. As such,
the Secretary's September 11, 2020, and September 28, 2020,
guidance is consistent with the Election Code. Plaintiffs’
claims of vote dilution based on this guidance will therefore
be dismissed.
B. The lack of a signature comparison does not violate
substantive due process.
In addition to alleging that the Secretary's guidance violates
the Election Code, Plaintiffs appear to also argue that their
right to vote is unconstitutionally burdened and diluted due to
a risk of fraud. That is, regardless of what the Election Code
requires, Plaintiffs assert that absent signature comparison,
mail-in and absentee ballots will be prone to fraud, thereby
diluting other lawful ballots. [ECF 509, pp. 45-50; 504-19,
pp. 10-15]. Plaintiffs argue that this significantly burdens their

Here, Plaintiffs’ signature-comparison claim does not meet
this high standard. This isn't a situation of malapportionment,
disenfranchisement, or intentional discrimination. And the
risk of voter fraud generally without signature comparison
—as a matter of fact and law—does not rise to “patent and
fundamental unfairness.”
Indeed, as discussed above, Plaintiffs’ evidence of potential
voter fraud here is insufficient to establish “patent and
fundamental unfairness.” In their summary-judgment brief,
Plaintiffs argue that “the Secretary's September 2020
guidance memos promote voter fraud.” [ECF 509, p.
48]. Plaintiffs then offer a hypothetical where a parent
signs a ballot application on their child's behalf because
the child is out-of-state. [ECF 509, p. 48]. Plaintiffs
assert that without signature comparisons, such “fraud”
could proceed unchecked. [Id.]. Plaintiffs continue, arguing
that the “fraud” would “snowball,” so that “spouses,
neighbors, acquaintances, strangers, and others” were signing
applications and ballots on others’ behalf. [Id. at pp. 48-49].
To prevent such fraud, Plaintiffs’ expert, Mr. Riddlemoser,
asserts that signature comparison is needed. [ECF 504-19, p.
10 (“Not only does enforcing the Election Code's requirement
of a completed and signed declaration ensure uniformity,
which increases voter confidence, it also functions to reduce
fraud possibilities by allowing signature verification.”) ].
Mr. Riddlemoser first highlights that in Philadelphia in the
primary, ballots were counted “that lacked a completed
declaration.” [Id. at p. 11]. Mr. Riddlemoser further opines
that the September 11, 2020, guidance and September 28,
2020, guidance, in instructing that signature comparison is
not required for mail-in and absentee ballots and applications,
“encourage[s], rather than prevent[s], voter fraud.” [Id. at pp.
12-13]. Mr. Riddlemoser also notes that signature comparison

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1475 Case 2:20-cv-01771-PP Filed 12/07/20 Page 50 of 64 Document 58-5

50

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

is “the most common method” to verify ballots and that
the Secretary's guidance “leave the absentee/mail-in ballots
subject to the potential for unfettered fraud.” [Id. at p.
14]. He concludes that the guidance “invites the dilution of
legitimately cast votes.” [Id.].
Based on this evidentiary record, construed in Plaintiffs’
favor, the Court cannot conclude that there exists “patent and
fundamental unfairness.” Rather, Plaintiffs present only the
possibility and potential for voter fraud. In their briefing,
Plaintiffs relied on hypotheticals, rather than actual events.
[ECF 509, p. 48]. Mr. Riddlemoser admits that failing to
verify signatures only creates “the potential” for fraud and
“invites” vote dilution. [ECF 504-19, pp. 14, 15]. Even
assuming an absence of signature comparison does indeed
invite the potential for fraud, the nondiscriminatory, uniform
practice and guidance does not give rise to “patent and
fundamental unfairness” simply because of a “potential” for
fraud. Plaintiffs have not presented evidence to establish a
sufficient burden on their constitutional right to vote.
*60 Indeed, even if the Court assumed some “forged”
applications or ballots were approved or counted, this is
insufficient to establish substantial, widespread fraud that
undermines the electoral process. Rather, limited instances of
“forged” ballots—which according to Plaintiffs’ definition,
includes an individual signing for their spouse or child—
amount to what the law refers to as “garden variety” disputes
of limited harm. As has long been understood, federal courts
should not intervene in such “garden variety” disputes.
Hutchinson, 797 F.2d at 1283 (“[C]ourts have uniformly
declined to endorse action under § 1983 with respect to
garden variety election irregularities.”) (cleaned up); Yoshina,
140 F.3d at 1226 (“In general, garden variety election
irregularities do not violate the Due Process Clause, even if
they control the outcome of the vote or election.” (collecting
cases)); Curry v. Baker, 802 F.2d 1302, 1314-15 (11th Cir.
1986) (“[I]f the election process itself reaches the point of
patent and fundamental unfairness, a violation of the due
process clause may be indicated and relief under § 1983
therefore in order. Such a situation must go well beyond
the ordinary dispute over the counting and marking of
ballots.” (cleaned up)).
To be clear, the Court does not take Plaintiffs’ allegations
and evidence lightly. Election fraud is serious and disruptive.
And Plaintiffs could be right that the safer course would
be to mandate signature comparison for all ballots. But
what Plaintiffs essentially complain of here is whether the

procedures employed by the Commonwealth are sufficient
to prevent that fraud. That is a decision left to the General
Assembly, not to the meddling of a federal judge. Crawford,
553 U.S. at 208, 128 S.Ct. 1610 (Scalia, J. concurring) (“It
is for state legislatures to weigh the costs and benefits of
possible changes to their election codes, and their judgment
must prevail unless it imposes a severe and unjustified overall
burden upon the right to vote, or is intended to disadvantage a
particular class.”). Griffin, 385 F.3d at 1131-32 (“[S]triking of
the balance between discouraging fraud and other abuses and
encouraging turnout is quintessentially a legislative judgment
with which we judges should not interfere unless strongly
convinced that the legislative judgment is grossly awry.”).
C. Plaintiffs’ federal equal-protection claims based on
signature comparison fail.
Plaintiffs present two federal equal-protection claims. The
Court will address each in turn.

1. County differences over signature comparison do not
violate federal equal-protection rights.
Plaintiffs’ first federal equal-protection claim is based on
some county boards of elections intending to verify the
signatures on mail-in and absentee ballots and applications,
while others do not intend to do so. To that end, Plaintiffs
have presented evidence that some, but not all, counties do
intend to verify signatures. E.g., [ECF 504-1].19 According
to Plaintiffs, this arbitrary and differential treatment of
mail-in and absentee ballots among counties—purportedly
caused by the Secretary's September 11, 2020, and September
28, 2020, guidance—violates the Equal-Protection Clause
because voters will be treated differently simply because of
the county in which they reside. The Court, however, finds no
equal-protection violation in this context.
19

The counties that intend to compare and verify signatures
in the upcoming election include at least the following
counties: Cambria, Elk, Franklin, Juniata, Mifflin,
Sullivan, Susquehanna, and Wyoming. [ECF 504-1].

The Secretary's guidance about which Plaintiffs complain
is uniform and nondiscriminatory. It was issued to all
counties and applies equally to all counties, and by extension,
voters. Because the uniform, nondiscriminatory guidance
is rational, it is sound under the Equal-Protection Clause.
See Gamza, 619 F.2d at 453 (5th Cir. 1980) (“We must,
therefore, recognize a distinction between state laws and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1476 Case 2:20-cv-01771-PP Filed 12/07/20 Page 51 of 64 Document 58-5

51

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

patterns of state action that systematically deny equality in
voting, and episodic events that, despite non-discriminatory
laws, may result in the dilution of an individual's vote.
Unlike systematically discriminatory laws, isolated events
that adversely affect individuals are not presumed to be a
violation of the equal protection clause.”) (citation omitted).
Indeed, the guidance merely instructs counties to abide by the
Election Code—an instruction to follow the law is certainly
rational and related to an obviously rational government
interest.
*61 In fact, if there is any unequal application now, it is
caused by those counties that are not following the guidance
and are going above and beyond the Election Code to impose
a signature-comparison requirement. That claim, though, is
not before the Court, as Plaintiffs here do not assert that
imposing a signature-comparison requirement violates the
Constitution (they allege the opposite).
In any event, to the extent there was uncertainty before,
this decision informs the counties of the current state of
the law as it relates to signature comparison. If any county
still imposes a signature-comparison requirement in order
to disallow ballots, it does so without support from the
Secretary's guidance or the Election Code. Further, counties
that impose this signature-comparison requirement to reject
ballots may be creating a different potential constitutional
claim for voters whose ballots are rejected. Boockvar, –––
A.3d at ––––, 2020 WL 5554644, at *34, n.16 (Wecht, J.
concurring) (noting that courts around the country have found
due process issues with signature-comparison requirements;
and collecting cases).
For these reasons, Plaintiffs’ equal-protection claim falls
short.

2. Different treatment between in-person ballots and mailin ballots also does not violate federal equal-protection
rights.
Plaintiffs also assert a second federal equal-protection claim
on the grounds that the Election Code, by not requiring
signature comparison for mail-in and absentee ballots, treats
such ballots differently than in-person ballots (which require
signature comparisons). Plaintiffs argue that this is an
unconstitutionally arbitrary and unequal treatment. The Court
disagrees.

It is well-settled that states may employ in-person voting,
absentee voting, and mail-in voting and each method need not
be implemented in exactly the same way. See Hendon, 710
F.2d at 181 (“A state may employ diverse methods of voting,
and the methods by which a voter casts his vote may vary
throughout the state.”)
“Absentee voting is a fundamentally different process from
in-person voting, and is governed by procedures entirely
distinct from in-person voting procedures.” ACLU of New
Mexico v. Santillanes, 546 F.3d 1313, 1320 (10th Cir. 2008)
(citations omitted). It is an “obvious fact that absentee
voting is an inherently different procedure from in-person
voting.” Indiana Democratic Party v. Rokita, 458 F. Supp.
2d 775, 830-31 (S.D. Ind. 2006). Because in-person voting
is “inherently different” from mail-in and absentee voting,
the procedures for each need not be the same. See, e.g.,
Santillanes, 546 F.3d at 1320-21 (“[B]ecause there are clear
differences between the two types of voting procedures, the
law's distinction is proper.”); Rokita, 458 F. Supp. 2d at 831
(“[I]t is axiomatic that a state which allows for both inperson and absentee voting must therefore apply different
requirements to these two groups of voters.”); Billups, 439
F. Supp. 2d at 1356-57 (“[A]bsentee voting and in-person
voting are inherently different processes, and both processes
use different standards, practices, and procedures.”).
Plaintiffs argue that while absentee and mail-in voting “is
a fundamentally different process from in-person voting,”
Defendants have “no justification in this instance to create
such an arbitrary and disparate rule between absentee/mail-in
voters and in-person voters.” [ECF 509, p. 51]. Not so.
*62 Because of the “inherent” differences between inperson voting and mail-in and absentee voting, Pennsylvania's
requirement for signature comparison for in-person ballots,
but not mail-in and absentee ballots, is not arbitrary. By
way of example, Secretary Boockvar articulated several valid
reasons why Pennsylvania implements different verification
procedures for mail-in and absentee voters versus in-person
voters. [ECF 504-12; ECF 549-2].
In her deposition, Secretary Boockvar explained that for
in-person voters, the only possible verification is signature
comparison and verification. [ECF 504-12, 55:19-56:19].
This is because, unlike mail-in and absentee voters who must
apply for a ballot, in-person voters may simply show up at
the polls on Election Day and vote. In contrast, for mailin and absentee voters, there are several verification steps

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1477 Case 2:20-cv-01771-PP Filed 12/07/20 Page 52 of 64 Document 58-5

52

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

implemented before the voter's mail-in/absentee ballot is
counted, such as checking their application and their drivers’
license number or social security number. [Id. at 56:8-19].
Thus, counties don't need to resort to a signature comparison
to identify and verify the mail-in or absentee voter.

district as a witness, who shall make affidavit of his identity or
continued residence in the election district.” Id. at § 3050(d).
Thus, the in-person voter whose signature is not verified is
immediately notified, is still allowed to cast a ballot, and is
given the opportunity to remedy the signature-deficiency.

This is important, as Defendants and Intervenors present
valid concerns about the uniformity and equality of signature
comparisons, in part, due to the technical nature of signature
analysis, the subjective underpinnings of signature analysis,
and the variety of reasons that signatures can naturally change
over time. [ECF 549-2, pp. 19-20, ¶ 68; ECF 549-9, p. 20,
¶¶ 63-64]. Such factors can reasonably justify not requiring
a signature comparison when the elector is not physically
present.

*63 In contrast, a voter who casts a mail-in or absentee
ballot cannot be afforded this opportunity. Absentee and mailin ballots are kept in “sealed or locked containers” until they
are “canvassed by the county board of elections.” 25 P.S. §
3146.8(a). The pre-canvassing and canvassing cannot begin
until Election Day. Id. at § 3146.8(g)(1.1)-(2). As such, the
absentee and mail-in ballots cannot be verified until Election
Day, regardless of when the voter mails the ballot. Further,
even if there were sufficient time, a voter cannot cure these
types of deficiencies on their mail-in or absentee ballot.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *20
(“[A]lthough the Election Code provides the procedures for
casting and counting a vote by mail, it does not provide for
the “notice and opportunity to cure” procedure sought by
Petitioner.”).

For example, Secretary Boockvar notes the concern with nonhandwriting-expert election officials comparing signatures,
without uniform standards. [ECF 549-2, pp. 19-20, ¶ 68].
She also notes that people's signatures can change over time,
due to natural and unavoidable occurrences, like injuries,
arthritis, or the simple passage of time. [Id.]. Such reasons
are valid and reasonable. See Boockvar, ––– A.3d at ––––,
2020 WL 5554644, at *34 (Wecht, J. concurring) (“Signature
comparison is a process fraught with the risk of error and
inconsistent application, especially when conducted by lay
people.”).
Secretary Boockvar further asserts that signature comparison
is justified for in-person voting, but not mail-in or absentee
voting, because the in-person voter is notified of his or
her signature deficiency, and afforded an opportunity to
cure. [ECF 549-2, pp. 19-20, ¶¶ 66-68 (explaining that inperson voters can be immediately notified of the signature
deficiency, but mail-in/absentee voters cannot) ]. Secretary
Boockvar's justifications are consistent with the Election
Code's framework.
When a voter votes in person, he or she signs the voter's
certificate, and the election official immediately, in the voter's
presence, verifies the signature. 25 P.S. § 3050(a.3)(1)-(2). If
the election official finds the signature to be problematic, the
in-person voter is told as such. Id. at § 3050(a.3)(2). Notably,
however, the in-person voter may still cast a ballot. Id. (“[I]f
the signature on the voter's certificate ... shall not be deemed
authentic by any of the election officers, such elector shall not
be denied the right to vote for that reason[.]”). The in-person
voter whose signature is questioned must, after casting the
ballot, “produce at least one qualified elector of the election

Therefore, if mail-in and absentee ballots were subject to
signature comparison, an election official—who is unstudied
in the technical aspects of signature comparison—could deem
a voter's signature problematic and not count the ballot, which
would effectively disenfranchise that voter. Unlike the inperson voter, the mail-in or absentee voter may not know that
his or her signature was deemed inauthentic, and thus may be
unable to promptly cure the deficiency even if he or she were
aware.
Accordingly, the Court concludes that the inherent differences
and opportunities afforded to in-person voters compared to
mail-in and absentee voters provides sufficient reason to treat
such voters differently regarding signature comparison. The
Court concludes that the lack of signature comparison for
mail-in and absentee ballots is neither arbitrary, nor burdens
Plaintiffs’ equal-protection rights.
For these reasons, the Court will dismiss Plaintiffs’ federal
equal-protection claims related to signature comparison.

3. The Election Code provisions related to signature
comparison satisfy Anderson-Burdick.
Finally, even assuming the Election Code's absence of
a signature-comparison requirement imposes some burden

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1478 Case 2:20-cv-01771-PP Filed 12/07/20 Page 53 of 64 Document 58-5

53

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

on Plaintiffs’ constitutional rights, Plaintiffs’ constitutional
claims still fail.
As discussed above with respect to Defendants’ drop-box
implementation, Anderson-Burdick does not apply neatly to
this claim either. This is because Plaintiffs aren't challenging
a specific regulation affecting their right to vote, but are
instead challenging the lack of a restriction on someone else's
right to vote. This makes both the burden difficult to assess
and also the state's interests in not doing something more
abstract. As such, the Court finds that the proper application
of the Anderson-Burdick framework here includes weighing
the burden involving Plaintiffs’ risk of vote dilution against
the state's interests and overall plan in preventing against
voter fraud, including with respect to forged mail-in ballots.
Weighing these considerations compels a conclusion that
there is no constitutional violation here. With respect to any
burden on Plaintiffs’ right to vote, that burden is slight, at best.
A failure to engage in a signature comparison may, crediting
Plaintiffs’ evidence, increase the risk of voter fraud. But even
then, this remains a largely speculative concern. This burden
too is lessened by the numerous other regulations imposed
by the Election Code, including the detailed verification
procedure as to the information on mail-in ballots (discussed
above), and the deterrence furthered by criminal sanctions for
those engaging in such voter fraud.
Against these burdens, the Commonwealth has precise and
weighty interests in verifying ballot applications and ballots
in an appropriate manner to ensure that they are accurate.
As discussed above, the Commonwealth determined that the
risk of disenfranchising mail-in and absentee voters, did not
justify signature comparison for those voters. [ECF 549-2,
pp. 19-20, ¶¶ 66-69]. Unlike for in-person voters, there
are other means of identifying and verifying mail-in and
absentee voters, such as having to specifically apply for a
mail-in or absentee ballot and provide various categories
of identifying information. [ECF 504-12, 55:19-56:19]; 25
P.S. §§ 3146.2(b), 3150.12(b). And ultimately, due to the
slight burden imposed on Plaintiffs, Pennsylvania's regulatory
interests in a uniform election pursuant to established
procedures is sufficient to withstand scrutiny. Timmons, 520
U.S. at 358, 117 S.Ct. 1364.
*64 The General Assembly opted not to require
signature comparisons for mail-in and absentee ballots
and applications. And as previously discussed, absent

extraordinary reasons to, the Court is not to second-guess the
legislature.
IV. Defendants and Intervenors are entitled to summary
judgment on Plaintiffs’ as-applied, federal constitutional
challenge to the county-residency requirement for poll
watchers.
Plaintiffs next take exception with the provision of the
Election Code that restricts a registered voter from serving as
a poll watcher outside the county of his or her residence. [ECF
461, ¶ 217].
Plaintiffs argue that “[a]s applied to the 2020 General
Election, during the midst of the COVID-19 pandemic,
Pennsylvania's residency requirement for watchers violates
equal protection.” [ECF 509, p. 58]. That's because, according
to Plaintiffs, the “current pandemic severely challenges the
ability of parties to staff watchers[.]” [Id. at p. 60]. And
not having enough poll watchers in place “puts into danger
the constitutionally-guaranteed right to a transparent and
undiluted vote,” [id. at p. 68], by “fostering an environment
that encourages ballot fraud or tampering,” [ECF 461, ¶
256]. As such, Plaintiffs believe that the county residency
requirement “is not rationally connected or reasonably related
to any interest presented by the Commonwealth.” [ECF 509,
p. 63].
Defendants and Intervenors have a markedly different view.
As an initial matter, the Democratic Intervenors argue that
Plaintiffs “are precluded from relitigating their claim that the
Commonwealth lacks a constitutionally recognized basis for
imposing a county-residence restriction for poll watchers”
based on the doctrine articulated in England v. Louisiana
State Bd. of Med. Examiners, 375 U.S. 411, 84 S.Ct. 461,
11 L.Ed.2d 440 (1964). [ECF 529, p. 16]. That doctrine
requires that after a federal court has abstained under
Pullman, the plaintiff must expressly reserve the right to
litigate any federal claims in federal court while litigating
state-law issues in state court. England, 375 U.S. at 419,
421-22, 84 S.Ct. 461. Defendants and Intervenors contend
that Plaintiffs (specifically, the Trump Campaign, the RNC,
and the Republican Party) failed to do so in the proceedings
before the Pennsylvania Supreme Court.
And if the England doctrine doesn't bar this claim, Defendants
and Intervenors argue that “Plaintiffs’ as-applied challenge
simply fails to state a constitutional claim.” See, e.g.,
[ECF 547, p. 65]. They believe that the county-residency

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1479 Case 2:20-cv-01771-PP Filed 12/07/20 Page 54 of 64 Document 58-5

54

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

requirement does not infringe on a fundamental right or
regulate a suspect classification (such as race, sex, or
national origin). [Id.]. As a result, the Commonwealth need
only provide a rational basis for the requirement, which
Defendants and Intervenors believe the Commonwealth has
done. [Id.].
After carefully reviewing the record and considering the
parties’ arguments and evidence, the Court finds that the
England doctrine does not bar Plaintiffs’ ability to bring this
claim. Even so, after fully crediting Plaintiffs’ evidence, the
Court agrees with Defendants and Intervenors that Plaintiffs’
as-applied challenge fails on the merits.
A. The England doctrine does not bar Plaintiffs’ federal
challenge to the county-residency requirement.
*65 In England, the Supreme Court established that after a
federal court abstains under Pullman, “if a party freely and
without reservation submits his federal claims for decision by
the state courts, litigates them there, and has them decided
there, then ... he has elected to forgo his right to return to
the District Court.” 375 U.S. at 419, 84 S.Ct. 461. To reserve
those rights, a plaintiff forced into state court by way of
abstention must inform the state court that he is exposing the
federal claims there only to provide the proper context for
considering the state-law questions. Id. at 421, 84 S.Ct. 461.
And that “he intends, should the state court[ ] hold against
him on the question of state law, to return to the District Court
for disposition of his federal contentions.” Id. Essentially, in
England, the Supreme Court created a special doctrine of res
judicata for Pullman abstention cases.
The Democratic Intervenors argue that because none of the
three Plaintiffs who participated in the Pennsylvania Supreme
Court case as either intervenors or amici “reserved the right
to relitigate [Plaintiffs’ poll-watcher claim] in federal court,”
they are now “precluded” from doing so. [ECF 529, p. 17].
The Court is not convinced that this doctrine bars Plaintiffs’
claim for at least two reasons.
First, in its original abstention decision, the Court noted that
“[n]one of Plaintiffs’ poll-watching claims directly ask the
Court to construe an ambiguous state statute.” [ECF 409, p.
24]. Instead, these claims resided in a Pullman gray area,
because they were only indirectly affected by other unsettled
state-law issues. In light of that, the Court finds that the
England doctrine was not “triggered,” such that Plaintiffs
needed to reserve their right to return to federal court to
litigate the specific as-applied claim at issue here.

Second, even if it were triggered, not all of the Plaintiffs here
were parties in the Pennsylvania Supreme Court case, and
only one (the Republican Party) was even given intervenor
status. But even the Republican Party, acting as an intervenor,
did not have an opportunity to develop the record or present
evidence relevant to its as-applied challenge. Thus, this claim
wasn't “fully litigated” by any of the Plaintiffs, which is
a necessary condition for the claim to be barred under the
England doctrine. Cf. Bradley v. Pittsburgh Bd. of Educ., 913
F.2d 1064, 1073 (3d Cir. 1990) (explaining that a litigant “may
not relitigate an issue s/he fully and unreservedly litigated in
state court”).
Thus, Plaintiffs are not precluded by the England doctrine
from bringing their remaining as applied poll-watcher claim.
The Court will now address the claim on the merits.
B. The county-residency requirement, as applied to the
facts presented and the upcoming general election, does
not violate the U.S. Constitution.
Originally, Plaintiffs raised a facial challenge to the countyresidency requirement under 25 P.S. § 2687. That is,
Plaintiffs first took the position that there was no conceivable
constitutional application of the requirement that an elector be
a resident of the county in which he or she seeks to serve. But,
as Plaintiffs’ concede, that facial challenge is no longer viable
in light of the Pennsylvania Supreme Court's recent decision.
[ECF 448, p. 10]. As a result, Plaintiffs now focus solely
on raising an as-applied challenge to the county-residency
requirement.
“[T]he distinction between facial and as-applied challenges is
not so well defined that it has some automatic effect or that
it must always control the pleadings and disposition in every
case involving a constitutional challenge.” Citizens United v.
Fed. Election Comm'n, 558 U.S. 310, 331, 130 S.Ct. 876, 175
L.Ed.2d 753 (2010).
At a fundamental level, a “facial attack tests a law's
constitutionality based on its text alone and does not consider
the facts or circumstances of a particular case. United States
v. Marcavage, 609 F.3d 264, 273 (3d Cir. 2010). By contrast,
an “as-applied attack” on a statute “does not contend that a
law is unconstitutional as written but that its application to a
particular person under particular circumstances deprived that
person of a constitutional right.” Id. The distinction between
facial and an as-applied attack, then, “goes to the breadth of
the remedy employed by the Court, not what must be pleaded

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1480 Case 2:20-cv-01771-PP Filed 12/07/20 Page 55 of 64 Document 58-5

55

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

in a complaint.” Citizens United, 558 U.S. at 331, 130 S.Ct.
876; see also Bruni v. City of Pittsburgh, 824 F.3d 353, 362
(3d Cir. 2016) (“The distinction between facial and as-applied
constitutional challenges, then, is of critical importance in
determining the remedy to be provided).
*66 Because the distinction is focused on the available
remedies, not the substantive pleading requirements, “[t]he
substantive rule of law is the same for both challenges.”
Edwards v. D.C., 755 F.3d 996, 1001 (D.C. Cir. 2014); see
also Pursuing Am.’s Greatness v. Fed. Election Comm'n, 831
F.3d 500, 509, n.5 (D.C. Cir. 2016) (“Indeed, the substantive
rule of law is the same for both as-applied and facial First
Amendment challenges.”) (cleaned up); Legal Aid Servs. of
Or. v. Legal Servs. Corp., 608 F.3d 1084, 1096 (9th Cir.
2010) (“The underlying constitutional standard, however, is
no different [in an as-applied challenge] th[a]n in a facial
challenge.”).
“In other words, how one must demonstrate the statute's
invalidity remains the same for both type of challenges,
namely, by showing that a specific rule of law, usually a
constitutional rule of law, invalidates the statute, whether in
a personal application or to all.” Brooklyn Legal Servs. Corp.
v. Legal Servs. Corp., 462 F.3d 219, 228 (2d Cir. 2006),
abrogated on other grounds by Bond v. United States, 564
U.S. 211, 131 S.Ct. 2355, 180 L.Ed.2d 269 (2011).
In determining whether a state election law violates the
U.S. Constitution, the Court must “first examine whether
the challenged law burdens rights protected by the First and
Fourteenth Amendments.” Patriot Party of Allegheny Cnty.
v. Allegheny Cnty. Dep't of Elections, 95 F.3d 253, 258 (3d
Cir. 1996). “Where the right to vote is not burdened by a
state's regulation on the election process, ... the state need
only provide a rational basis for the statute.” Cortés, 218 F.
Supp. 3d at 408. The same is true under an equal protection
analysis. “If a plaintiff alleges only that a state treated him
or her differently than similarly situated voters, without a
corresponding burden on the fundamental right to vote, a
straightforward rational basis standard of review should be
used.” Obama, 697 F.3d at 428 (6th Cir. 2012); see also
Biener, 361 F.3d at 214-15 (applying rational basis where
there was no showing of an “infringement on the fundamental
right to vote.”); Donatelli, 2 F.3d at 515 (“A legislative
classification that does not affect a suspect category or
infringe on a fundamental constitutional right must be upheld
against equal protection challenge if there is any reasonably

conceivable state of facts that could provide a rational basis
for the classification.” (cleaned up)).
But where the law imposes at least some burden on protected
rights, the court “must gauge the character and magnitude of
the burden on the plaintiff and weigh it against the importance
of the interests that the state proffers to justify the burden.”
Patriot Party, 95 F.3d at 258 (citations omitted).
Consistent with the Pennsylvania Supreme Court's recent
decision, but now based on a complete record, this Court
finds that the county-residency requirement for poll watching
does not, as applied to the particular circumstances of this
election, burden any of Plaintiffs’ fundamental constitutional
rights, and so a deferential standard of review should apply.
See Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *30.
Under a rational-basis review and considering all the relevant
evidence before the Court, the county-residency requirement
is rational, and thus constitutional. But even if the requirement
burdened the right to vote, that burden is slight—and under
the Anderson-Burdick test, the Commonwealth's interests in
a county-specific voting system, viewed in the context of its
overall polling-place security measures, outweigh any slight
burden imposed by the county-residency restriction.

1. The county-residency requirement neither burdens
a fundamental right, including the right to vote, nor
discriminates based on a suspect classification.
*67 At the outset, “there is no individual constitutional right
to serve as a poll watcher[.]” Boockvar, ––– A.3d at ––––,
2020 WL 5554644, at *30 (citing Cortés, 218 F. Supp. 3d
at 408); see also Dailey v. Hands, No. 14-423, 2015 WL
1293188, at *5 (S.D. Ala. Mar. 23, 2015) (“[P]oll watching is
not a fundamental right protected by the First Amendment.”);
Turner v. Cooper, 583 F. Supp. 1160, 1162 (N.D. Ill. 1983)
(“Plaintiffs have cited no authority ..., nor have we found any,
that supports the proposition that [the plaintiff] had a first
amendment right to act as a poll watcher.”).
“State law, not the Federal Constitution, grants individuals the
ability to serve as poll watchers and parties and candidates
the authority to select those individuals.” Cortés, 218 F. Supp.
3d at 414; see also Boockvar, ––– A.3d at ––––, 2020 WL
5554644, at *30 (the right to serve as a poll watcher “is
conferred by statute”); Tiryak v. Jordan, 472 F. Supp. 822,
824 (E.D. Pa. 1979) (“The number of poll-watchers allowed,
the manner of their appointment, their location within the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1481 Case 2:20-cv-01771-PP Filed 12/07/20 Page 56 of 64 Document 58-5

56

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

polling place, the activities permitted and the amount of
compensation allowed are all dictated by [25 P.S. § 2687].”).
Given the nature of the right, “[i]t is at least arguable that
the [Commonwealth of Pennsylvania] could eliminate the
position of poll watcher” without offending the constitution.
Cotz v. Mastroeni, 476 F. Supp. 2d 332, 364 (S.D.N.Y.
2007). In fact, one neighboring state—West Virginia—has
eliminated poll watchers. W. Va. Code Ann. § 3-1-37; W. Va.
Code Ann. § 3-1-41.

requirement burdens the right to vote is based on the same
threat of vote dilution by fraud that they have advanced with
their other claims. In other words, Plaintiffs’ claim that the
county-residency requirement for poll watchers limits the
ability to find poll watchers, which, in turn, limits the ability
for poll watchers to detect fraud and ballot tampering. [ECF
461, ¶¶ 256-57]. The resulting fraudulent or destroyed ballots
cause the dilution of lawfully cast ballots. [ECF 509, pp.
64-68].

Nor does the county-residency requirement hinder the
“exercise of the franchise.” Cortés, 218 F. Supp. 3d at 408. It
doesn't in any way limit voters’ “range of choices in the voting
booth”—voters can still “cast ballots for whomever they
wish[.]” Id. And, as Plaintiffs admit, the county-residency
requirement doesn't make the actual act of casting a vote
any harder. See [ECF 524-24, 67:1-6]. Indeed, at least one of
the plaintiffs here, Representative Joyce, testified that he was
unaware of anyone unable to cast his ballot because of the
county-residency requirement for poll watchers [Id.].

*68 Thus, based on this theory, to establish the burden
flowing from the county-residency restriction, Plaintiffs must
show (1) the county-residency requirement prevents them
from recruiting enough registered Republican poll watchers
in every county, (2) the absence of these Republican poll
watchers creates a material risk of increased fraud and ballot
tampering, and (3) this risk of fraud and ballot tampering will
dilute the value of honestly cast votes.

Finally, Plaintiffs’ claim that Pennsylvania's “poll watching
system” denies them “equal access” to the ability to observe
polling places in the upcoming election does not, on its own,
require the Court to apply anything other than rational-basis
scrutiny. [ECF 551, p. 75]. To the extent Plaintiffs are denied
equal access (which discussed below, as a matter of evidence,
is very much in doubt), it isn't based on their membership in
any suspect classification.
For a state law to be subject to strict scrutiny, it must not
only make a distinction among groups, but the distinction
must be based on inherently suspect classes such as race,
gender, alienage, or national origin. See City of Cleburne
v. Cleburne Living Ctr., 473 U.S. 432, 439-40, 105 S.Ct.
3249, 87 L.Ed.2d 313 (1985). Political parties are not such a
suspect class. Greenville Republican Party, 824 F. Supp. 2d
at 669 (“[T]his court is unfamiliar with, and Plaintiffs have
not cited, any authority categorizing political parties as an
inherently suspect class.”) Likewise, “[c]ounty of residence is
not a suspect classification warranting heightened scrutiny[.]”
Short, 893 F.3d at 679.
Plaintiffs don't dispute this. [ECF 509, p. 65 (“To be clear,
the right at issue here is the right of candidates and political
parties to participate in an election where the process is
transparent and open to observation and the right of the voters
to participate in such election.” (emphasis in original)) ].
Rather, Plaintiffs’ theory as to how the county-residency

There are both factual and legal problems fatal to Plaintiffs’
vote-dilution theory in this context. Factually, Plaintiffs’
evidence, accepted as true, fails to establish that they cannot
find enough poll watchers because of the county-residency
requirement. But even if they made that factual showing,
the inability to find poll watchers still does not burden any
recognized constitutional right in a way that would necessitate
anything more than deferential review.

2. Plaintiffs’ evidence does not establish any factual
predicate for their theory.
Even accepting as true Plaintiffs’ version of events, Plaintiffs
have not established that the county-residency requirement is
responsible for an inability to find enough poll watchers for
at least two reasons.
First, Plaintiffs’ evidence stops short of demonstrating any
actual shortfall of desired poll watchers.
For example, in his declaration, James J. Fitzpatrick, the
Pennsylvania Director for Election Day Operations for the
Trump Campaign, stated only that the “Trump Campaign is
concerned that due to the residency restriction, it will not
have enough poll watchers in certain counties.” [ECF 504-2,
¶ 25 (emphasis added) ]. Notably, however, Mr. Fitzpatrick,
even when specifically asked during his deposition, never
identified a single county where the Trump Campaign has
actually tried and failed to recruit a poll watcher because

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1482 Case 2:20-cv-01771-PP Filed 12/07/20 Page 57 of 64 Document 58-5

57

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

of the county-residency requirement. See, e.g., [ECF 528-14,
261:21-25] (“Q: Which counties does the Trump campaign or
the RNC contend that they will not be able to obtain what you
refer to as full coverage of poll watchers for the November
2020 election? A: I'm not sure. I couldn't tell you a list.”).
Nor do any of Plaintiffs’ other witness declarations establish
an actual, inability to recruit poll watchers in any specific
county. Representative Reschenthaler stated only that he was
“concerned” that he “will not be able to recruit enough
volunteers from Greene County to watch the necessary polls
in Greene County.” [ECF 504-6, ¶ 12].
Representative Kelly stated that he was “likely to have
difficulty getting enough poll watchers from within Erie
County to watch all polls within that county on election
day.” [ECF 504-5, ¶ 16]. “Likely difficulty” isn't the same
as an “actual inability.” That aside, the declaration doesn't
provide any basis for Representative Kelly's assessment of
this “likely difficulty.” Nowhere does he detail the efforts he
took (e.g., the outreach he tried, prospective candidates he
unsuccessfully recruited, and the like), nor did he explain why
those efforts aren't likely to succeed in the future.
The same goes for Representative Thompson's declaration.
Representative Thompson stated that during some
unspecified prior elections, unidentified parties and
campaigns did not “always find enough volunteers to serve as
poll watchers in each precinct.” [ECF 504-4, ¶ 20]. But this
undetailed statement doesn't help Plaintiffs’ cause, because it
doesn't identify the elections during which this was a problem,
the parties and campaigns affected by a lack of poll watchers,
or the precincts for which no poll watcher could be found.
*69 Representative Joyce's declaration doesn't even express
a “concern” about “likely difficulty” in recruiting poll
watchers. He simply stated his belief that “[p]oll watchers
play a very important role in terms of protecting the integrity
of the election process[.]” [ECF 504-7, ¶ 11]. While he may be
right, it has no bearing on whether Plaintiffs can find enough
people to play that “very important role.”
Indeed, Plaintiffs’ prediction that they will “likely” have
difficulty finding poll watchers is belied by the uncontested
Pennsylvania voter registration statistics for 2019 that they
included as an exhibit to their summary-judgment brief. [ECF
504-34]. Those statistics suggest that there is no shortage of
registered Republican voters who are qualified to serve as
poll watchers. [Id.]. Even in the three specific counties in

which Plaintiffs warn that “Democratic registered voters outnumber ... their Republican counterparts” (i.e., Philadelphia,
Delaware, and Centre), there are still significant numbers
of registered Republicans. See [ECF 504-34 (Philadelphia –
118,003; Delaware – 156,867; and Centre – 42,903) ]. And
only a very small percentage of the registered Republicans
would be needed to fill all the necessary poll watcher
positions in those allegedly problematic counties. See, e.g.,
Cortés, 218 F. Supp. 3d at 410 (noting that, in 2016,
the Republican Party “could staff the entirety of the poll
watcher allotment in Philadelphia county with just 4.1% of
the registered Republicans in the county.”). While Plaintiffs
argue that these statistics don't show the number of registered
Republicans willing to serve as a poll watcher, the Court is
hard pressed to see, nor do Plaintiffs show, how among the
tens—or hundreds—of thousands of registered Republicans
in these counties, Plaintiffs are unable to find enough poll
workers.20
20

Plus, these figures do not even tell the whole story
because they do not take into account the hundreds of
thousands of voters who are registered to other parties
who could also conceivably serve as poll watchers for the
Trump Campaign and the candidate Plaintiffs. [504-34].
While that may not be the ideal scenario for Plaintiffs,
they concede there's nothing in the Election Code that
limits them to recruiting only registered voters from the
Republican Party. [ECF 528-14, 267:23-268:1 (Q: And
you don't have to be a registered Republican to serve as a
poll watcher for the Trump campaign, do you? A: No.) ].
To that point, the Trump Campaign utilized at least two
Democrats among the poll watchers it registered in the
primary. [ECF 528-15, P001648].

Plaintiffs have not presented any evidence that would
explain how, despite these numbers, they will have a hard
time finding enough poll watchers. In fact, Plaintiffs’ own
expert, Professor Lockerbie, admits that “the Democratic and
Republican parties might be able to meet the relevant criteria
and recruit a sufficient population of qualified poll watchers
who meet the residency requirements[.]” [ECF 504-20, ¶ 16].
Professor Lockerbie's report makes clear, and Plaintiffs
appear to agree, that the county-residency requirement only
potentially burdens other, “minor” political parties’ ability
to recruit enough poll watchers. [ECF 509, p. 61 (citing
ECF 504-20, ¶¶ 16-17) ]. Regardless, any burden on these
third parties is not properly before the Court. They are not
parties to this litigation, and so the Court doesn't know their
precise identities, whether they have, in fact, experienced any

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1483 Case 2:20-cv-01771-PP Filed 12/07/20 Page 58 of 64 Document 58-5

58

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

difficulty in recruiting poll watchers, or, more fundamentally,
whether they even want to recruit poll watchers at all.21
21

To the extent that Plaintiffs are attempting to bring their
claim on behalf of these third parties (which is unclear),
they would lack standing to do so. Ordinarily, “a litigant
must assert his or her own legal rights and interests
and cannot rest a claim of relief on the legal rights or
interests of third parties.” Powers v. Ohio, 499 U.S. 400,
410, 111 S.Ct. 1364, 113 L.Ed.2d 411 (1991). The only
time a litigant can bring an action on behalf of a third
party is when “three important criteria are satisfied.” Id.
“The litigant must have suffered an ‘injury in fact,’ thus
giving him or her a ‘sufficiently concrete interest’ in the
outcome of the issue in dispute; the litigant must have a
close relation to the third party; and there must exist some
hindrance to the third party's ability to protect his or her
own interest.” Id. at 410-11, 111 S.Ct. 1364 (cleaned up).
Plaintiffs cannot satisfy the second or third criteria.
Plaintiffs claim that they “have a close relationship with
these minor parties such that it will act as an effective
advocate for the minor parties.” [ECF 551, p. 30]. It is
hard to see how Plaintiffs can be said to have a close
relationship with rival political parties who are their
direct adversaries in the upcoming election.
Plaintiffs also argue that these “minor parties are
hindered from protecting their own interests, particularly
in this action when there are no minor party
intervenors.” [Id.]. But that doesn't hold water either. Just
because these other parties have not asked to intervene,
it does not mean they were incapable of intervening or
seeking relief elsewhere. Indeed, these parties and their
candidates have demonstrated time and again that they
can raise their own challenges to election laws when
they so desire, including by filing suit in federal district
court. See, e.g., Stein v. Cortés, 223 F. Supp. 3d 423 (E.D.
Pa. 2016) (Green Party Presidential candidate Jill Stein
seeking recount); Libertarian Party of Conn. v. Merrill,
No. 20-467, 2020 WL 3526922 (D. Conn. June 27, 2020)
(seeking to enjoin Connecticut's ballot access rules that
required minor party candidates to petition their way
onto the ballot); Green Party of Ark. v. Martin, 649 F.3d
675 (8th Cir. 2011) (challenging Arkansas’ ballot access
laws).

*70 Additionally, Plaintiffs failed to present evidence that
connects the county-residency requirement to their inability
to find enough poll watchers. To succeed on their theory
Plaintiffs cannot just point to difficulty recruiting poll
watchers, they need to also show that “Section 2687(b) is
responsible for their purported staffing woes.” Cortés, 218 F.
Supp. 3d at 410. Plaintiffs fail to show this, too.

Plaintiffs argue that the ongoing COVID-19 pandemic greatly
reduces the number of people who would be willing to serve
as a poll watcher, which further exacerbates the alleged
problem caused by the county-residency requirement. [ECF
509, p. 60]. The primary problem with this argument, though,
is that Plaintiffs have not presented any evidence to support
it. Plaintiffs have not put forward a statement from a single
registered voter who says they are unwilling to serve as a poll
watcher due to concerns about contracting COVID-19.
Despite this shortcoming, the Court also acknowledges that
COVID-19 generally has made it more difficult to do anything
in person, and it is entirely plausible that the current pandemic
will limit Plaintiffs from recruiting poll watchers to man
polling places on election day. But that is likely true for
just about every type of election rule and regulation. For
example, the effects of the ongoing pandemic coupled with
the requirement that the poll watcher be a registered voter
(a requirement that unquestionably narrows the pool of
potential candidates) would also make it harder to recruit
poll watchers. There is no basis to find that the current
public-health conditions, standing alone, render the countyresidency requirement irrational or unconstitutional.
To bolster their concerns over COVID-19, Plaintiffs point
to Democratic Nat'l Committee v. Bostelmann, No. 20-249,
––– F.Supp.3d ––––, 2020 WL 5627186 (W.D. Wis. Sept. 21,
2020), where the court there enjoined Wisconsin's statute that
requires that each election official (i.e., poll worker) be an
elector of the county in which the municipality is located. That
case is distinguishable in at least two important ways.
First, Bostelmann concerned poll workers, not poll watchers.
Id. at ––––, 2020 WL 5627186, at *7. The difference
between the two is significant. Poll workers are a more
fundamental and essential aspect of the voting process.
Without poll workers, counties cannot even open polling
sites, which creates the possibility that voters will be
completely disenfranchised. In fact, in Bostelmann, the
plaintiffs presented evidence that Milwaukee was only able
to open 5 of its normal 180 polling places. Id. A failure to
provide voters a place to vote is a much more direct and
established constitutional harm than the one Plaintiffs allege
here.
Second, the plaintiffs in Bostelmann actually presented
evidence that they were unable to find the poll workers they
needed due to the confluence of the COVID-19 pandemic and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1484 Case 2:20-cv-01771-PP Filed 12/07/20 Page 59 of 64 Document 58-5

59

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

the challenged restriction. Id. As discussed above, Plaintiffs
here have presented no such evidence.
To succeed on summary judgment, Plaintiffs need to move
beyond the speculative concerns they offer and into the realm
of proven facts. But they haven't done so on two critical fronts
—they haven't shown an actual inability to find the necessary
poll watchers, or that such an inability is caused by the countyresidency requirement. Because Plaintiffs have not pointed
to any specific “polling place that Section 2687(b) prevents
[them] from staffing with poll watchers,” Plaintiffs’ theory of
burden is doomed at launch. Cortés, 218 F. Supp. 3d at 409.

3. Even if Plaintiffs could establish a factual predicate for
their theory, it would fail as a matter of law.
*71 As the Pennsylvania Supreme Court concluded last
month, Plaintiffs’ “speculative claim that it is ‘difficult’ for
both parties to fill poll watcher positions in every precinct,
even if true, is insufficient to transform the Commonwealth's
uniform and reasonable regulation requiring that poll
watchers be residents of the counties they serve into a nonrational policy choice.” Boockvar, ––– A.3d at ––––, 2020
WL 5554644, at *30 (emphasis added).22 The fundamental
constitutional principles undergirding this finding are sound.
22

The Sierra Club Intervenors argue this should end the
analysis. [ECF 542, p. 14 (“Even ‘as applied,’ Plaintiffs’
claim has already been rejected”) ]. While the Court
finds the Pennsylvania Supreme Court's apparent ruling
on Plaintiffs’ as-applied challenge instructive, it is not
outcome determinative. That is because the Pennsylvania
Supreme Court did not have the benefit of the full
evidentiary record that the Court has here.

Plaintiffs’ only alleged burden on the right to vote is
that Defendants’ lawful imposition of a county-residency
requirement on poll watching will result in an increased risk
of voter irregularities (i.e., ballot fraud or tampering) that will,
in turn, potentially cause voter dilution. While vote dilution
is a recognized burden on the right to vote in certain contexts,
such as when laws are crafted that structurally devalue one
community's or group of people's votes over another's, there
is no authority to support a finding of burden based solely
on a speculative, future possibility that election irregularities
might occur. See, e.g., Minnesota Voters, 720 F.3d at 1033
(affirming dismissal of claims “premised on potential harm in
the form of vote dilution caused by insufficient pre-election
verification of EDRs’ voting eligibility and the absence of

post-election ballot rescission procedures”); Common Cause
Rhode Island v. Gorbea, 970 F.3d 11, 15 (1st Cir. 2020)
(rejecting the claim that a ballot witness signature requirement
should not be enjoined during a pandemic because it would
allegedly increase the risk of voter fraud and put Republican
candidates at risk); Cook Cnty. Rep. Party v. Pritzker, No.
20-4676, 2020 WL 5573059, at *4 (N.D. Ill. Sept. 17, 2020)
(denying a motion to enjoin a law expanding the deadline to
cure votes because plaintiffs did not show how voter fraud
would dilute the plaintiffs’ votes).
Without a recognized burden on the right to vote, Plaintiffs’
“argument that the defendants did not present an adequate
justification is immaterial.” Green Party of Tennessee v.
Hargett, No. 16-6299, 2017 WL 4011854, at *4 (6th Cir.
May 11, 2017). That's because the Court need not apply the
Anderson-Burdick framework, and its intermediate standards,
in this situation. See Donatelli, 2 F.3d at 514 & n.10.
Instead, just as the Pennsylvania Supreme Court held, the
Commonwealth here need only show “that a rational basis
exists [for the county-residency requirement] to be upheld.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *30
(citing Cortes, 218 F. Supp. 3d at 408); see also Voting
for Am., Inc. v. Andrade, 488 F. App'x 890, 899 (5th Cir.
2012) (applying rational basis review as opposed to the
Anderson-Burdick balancing test because state election law
did not implicate or burden specific constitutional rights);
McLaughlin v. North Carolina Bd. of Elections, 65 F.3d 1215,
1227 (4th Cir. 1995) (concluding that a ballot access law “fails
the Anderson balancing test only if it also does in fact burden
protected rights”).
*72 “Under rational-basis review, the challenged
classification must be upheld ‘if there is any reasonably
conceivable state of facts that could provide a rational basis
for the classification.’ ” Donatelli, 2 F.3d at 513 (quoting
FCC v. Beach Commc'ns, Inc., 508 U.S. 307, 313, 113 S.Ct.
2096, 124 L.Ed.2d 211 (1993)). “This standard of review is
a paradigm of judicial restraint.” FCC, 508 U.S. at 314, 113
S.Ct. 2096. It “is not a license for courts to judge the wisdom,
fairness, or logic of legislative choices.” Id. at 313, 113 S.Ct.
2096. Nor is it the Court's “place to determine whether the
[General Assembly's decisions] were the best decisions or
even whether they were good ones.” Donatelli, 2 F.3d at 518.
Applying this deferential standard of review, the
Pennsylvania Supreme Court found that given Pennsylvania's
“county-based scheme for conducting elections, it is
reasonable that the Legislature would require poll watchers,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1485 Case 2:20-cv-01771-PP Filed 12/07/20 Page 60 of 64 Document 58-5

60

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

who serve within the various counties of the state, to be
residents of the counties in which they serve.” Boockvar, –––
A.3d at ––––, 2020 WL 5554644, at *30 (citing Cortés, 218
F. Supp. 3d at 409). The Court agrees.
There are multiple reasons for this. As Secretary Boockvar
advises, “[b]y restricting poll watchers’ service to the counties
in which they actually reside, the law ensures that poll
watchers should have some degree of familiarity with the
voters they are observing in a given election district.” [ECF
549-2, p. 22, ¶ 78]. In a similar vein, Intervenors’ expert,
Dr. Barreto, in his report, states that, voters are more likely
to be comfortable with poll watchers that “they know and
they recognize from their area.” [ECF 524-1, ¶40 (“Research
in political science suggests that voters are much more
comfortable and trusting of the process when they know or are
familiar with poll workers who are from their community.”) ].
When poll watchers come from the community, “there is
increased trust in government, faith in elections, and voter
turnout[.]” [Id.].
At his deposition, Representative Kelly agreed with this
idea: “Yeah, I think – again, depending how the districts
are established, I think people are probably even more
comfortable with people that they – that they know and they
recognize from their area.” [ECF 524-23, 111:21-25].
Whether requiring poll watchers to be residents of the county
in which they will serve is the best or wisest rule is not
the issue before the Court. The issue is whether that rule is
reasonable and rationally advances Pennsylvania's legitimate
interests. This Court, like multiple courts before it, finds that
it does.

4. Plaintiffs’ poll-watcher claim fails under the
Anderson-Burdick framework.
Even if rational-basis review did not apply and Plaintiffs
had established a burden on their right to vote, their claim
nonetheless fails under the Anderson-Burdick framework.
Viewing Plaintiffs’ evidence in the best possible light, at most,
the county-residency requirement for poll watching places
only an indirect, ancillary burden on the right to vote through
an elevated risk of vote dilution.
Against this slight burden, the Commonwealth has sound
interests in imposing a county-residency requirement,

including, as noted above, local familiarity with rules,
regulations, procedures, and the voters. Beyond this, in
assessing the Commonwealth's interest in imposing the
county-based restriction, that interest must be viewed in the
overall context of the Commonwealth's security measures
involving polling places that are designed to prevent against
fraud and vote dilution.
As the court in Cortés recognized, “while poll watchers may
help guard the integrity of the vote, they are not the Election
Code's only, or even best, means of doing so.” 218 F. Supp.
3d at 404.
*73 Each county has the authority to investigate fraud and
report irregularities to the district attorney. 25 P.S. § 2642(i).
Elections in each district are conducted by a multimember
election board, which is comprised of an election judge, a
majority inspector, and a minor inspector. 25 P.S. § 2671.
Each voting district may also use two overseers of election,
who are appointed from different political parties by the
Pennsylvania Courts of Common Pleas, and “carry greater
authority than poll watchers.” Cortés, 218 F. Supp. 3d at 403
(citing 25 P.S. § 2685). “Election overseers have the right
to be present with the officers of an election ‘within the
enclosed space during the entire time the ... election is held.”
Id. “Poll watchers have no such right,” they must “remain
‘outside the enclosed space’ where ballots are counted or
voting machines canvassed.” Id. (citing 25 P.S. § 2687(b)).
Election overseers can also challenge any person offering to
vote, while poll watchers have no such authority. 25 P.S. §
2687. For these reasons, concerns “over potential voter fraud
—whether perpetrated by putative electors or poll workers
themselves—appear more effectively addressed by election
overseers than poll watchers[.]” Id. at 406.
Plaintiffs complain that poll watchers may not be present
during the pre-canvass and canvass meetings for absentee
and mail-in ballots. But the Election Code provides that
“authorized representatives” of each party and each candidate
can attend such canvassing. 25 P.S. § 3146.8(g)(1.1), (2).
That means if, for example, 15 Republican candidates appear
on ballots within a particular county (between both the state
and federal elections), there could be up to 16 “authorized
representatives” related to the Republican Party (one for each
candidate and one for the party as a whole) present during
canvassing. Adding poll watchers to that mix would just be
forcing unnecessary cooks into an already crowded kitchen.23
See [ECF 549-2, p. 23, ¶ 83 (“If every certified poll watcher
within a county was permitted to attend the pre-canvass

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1486 Case 2:20-cv-01771-PP Filed 12/07/20 Page 61 of 64 Document 58-5

61

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

meeting, the elections staff could be overwhelmed by the vast
numbers of poll watchers, and the pre-canvassing process
could become chaotic and compromised.”) ].
23

After the briefing on the cross-motions for summary
judgment had closed, on October 6, 2020, Secretary
Boockvar issued additional guidance, which Plaintiffs
then raised with the Court the following day. [ECF
571]. This new guidance confirms that poll watchers
cannot be present during the pre-canvassing and
canvassing of mail-in ballots. It also makes clear that
while the authorized representative can be present, the
representative cannot make any challenges to the ballots.
The Court finds that this new guidance has minimal
relevance to the current disputes at issue here. The scope
of duties of a representative is not before the Court.
Of sole relevance here is whether this new guidance
changes how this Court weighs the burdens and benefits
of the county-residency restriction for poll watchers. The
Court finds that the representative's inability to challenge
mail-in ballots does appear to provide less protection to
Plaintiffs; but in the grand election scheme, particularly
in light of the role of the election overseers, the Court
does not find the new guidance to materially upset
the Commonwealth's interests in its overall electionmonitoring plan.

*74 Further, Secretary Boockvar testified that Pennsylvania
has adopted new voting systems that will provide an
additional layer of security. [ECF 524-27, 237:21-238:11].
That is, there will now be a paper trail in the form of verifiable
paper ballots that will allow voters to confirm their choice,
and the state recently piloted a new program that will help
ensure that votes can be properly verified. [Id.].
On balance, then, it is clear that to the extent any burden
on the right to vote exists, it is minimal. On the other hand,
the Commonwealth's interest in a county-specific voting
system, including with county-resident poll watchers, is
rational and weighty, particularly when viewed in the context
of the measures that the Commonwealth has implemented
to prevent against election fraud at the polls. As such,
under the flexible Anderson-Burdick standard, Plaintiffs have
failed to establish that the county-residency requirement is
unconstitutional.

5. The Court will continue to abstain from deciding where
the Election Code permits poll watching to occur.

Plaintiffs also appear to challenge any attempts to limit
poll watching to “monitoring only in-person voting at the
polling place on Election Day.” [ECF 461, ¶ 254]. That
is, in their proposed order accompanying their Motion for
Summary Judgement, Plaintiffs seek a declaration that they
are “permitted to have watchers present at all locations where
voters are registering to vote, applying for absentee or mailin ballots, voting absentee or mail-in ballots, and/or returning
or collecting absentee or mail-in ballots, including without
limitation any satellite or early voting sites established by any
county board of elections.” [ECF 503-1, ¶ 3].
Plaintiffs also argue that Secretary Boockvar's October 6,
2020, guidance expressly, and unlawfully, prohibits poll
watchers from being present at county election offices,
satellite offices, and designated ballot-return sites. [ECF 571].
This challenge, however, is directly related to the unsettled
state-law question of whether drop boxes and other satellite
locations are “polling places” as envisioned under the
Election Code. If they are, then Plaintiffs may be right in that
poll watchers must be allowed to be present. However, the
Court previously abstained under Pullman in addressing this
“location” claim due to the unsettled nature of the state-law
issues; and it will continue to do so. [ECF 459, p. 5 (“The
Court will continue to abstain under Pullman as to Plaintiffs’
claim pertaining to the notice of drop box locations and, more
generally, whether the ‘polling place’ requirements under the
Election Code apply to drop-box locations. As discussed in
the Court's prior opinion, this claim involves unsettled issues
of state law.”) ].
Moreover, Plaintiffs have filed a lawsuit in the Court of
Common Pleas of Philadelphia to secure access to drop box
locations for poll watchers. The state court held that satellite
ballot-collection locations, such as drop-box locations, are
not “polling places,” and therefore poll watchers are not
authorized to be present in those places. [ECF 573-1, at
p. 12]. The Trump Campaign immediately filed a notice
of appeal of that decision. Regardless of what happens on
appeal, Plaintiffs appear to be on track to obtain resolution
of that claim in state court. [ECF 549-22]. Although this isn't
dispositive, it does give the Court comfort that Plaintiffs will
be able to seek timely resolution of these issues, which appear
to be largely matters of state law. See Barr v. Galvin, 626
F.3d 99, 108 n.3 (1st Cir. 2010) (“Though the existence of a
pending state court action is sometimes considered as a factor
in favor of abstention, the lack of such pending proceedings
does not necessarily prevent abstention by a federal court.”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1487 Case 2:20-cv-01771-PP Filed 12/07/20 Page 62 of 64 Document 58-5

62

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

V. The Court will decline to exercise supplemental
jurisdiction over Plaintiffs’ state-constitutional claims.
*75 In addition to the federal-constitutional claims
addressed above, Plaintiffs assert violations of the
Pennsylvania Constitution in Counts III, V, VII, and IX of
the Second Amended Complaint. Because the Court will be
dismissing all federal-constitutional claims in this case, it will
decline to exercise supplemental jurisdiction over these statelaw claims.
Under 28 U.S.C. § 1367(c)(3), a court “may decline to
exercise supplemental jurisdiction over state law claims
if it has dismissed all claims over which it has original
jurisdiction[.]” Stone v. Martin, 720 F. App'x 132, 136
(3d Cir. 2017) (cleaned up). “It ‘must decline’ to exercise
supplemental jurisdiction in such circumstances ‘unless
considerations of judicial economy, convenience, and fairness
to the parties provide an affirmative justification for
[exercising supplemental jurisdiction].’ ” Id. (quoting Hedges
v. Musco, 204 F.3d 109, 123 (3d Cir. 2000) (emphasis in
original)).
Courts have specifically applied this principle in cases raising
federal and state constitutional challenges to provisions
of the state's election code. See, e.g., Silberberg v. Bd.
of Elections of New York, 272 F. Supp. 3d 454, 480–
81 (S.D.N.Y. 2017) (“Having dismissed plaintiffs’ First
and Fourteenth Amendment claims, the Court declines to
exercise supplemental jurisdiction over plaintiffs’ state law
claims.”); Bishop v. Bartlett, No. 06-462, 2007 WL 9718438,
at *10 (E.D.N.C. Aug. 18, 2007) (declining “to exercise
supplemental jurisdiction over the state constitutional claim”
following dismissal of all federal claims and recognizing
“the limited role of the federal judiciary in matters of state
elections” and that North Carolina's administrative, judicial,
and political processes provide a better forum for plaintiffs to
seek vindication of their state constitutional claim), aff'd, 575
F.3d 419 (4th Cir. 2009).
Beyond these usual reasons to decline to exercise
supplemental jurisdiction over the state-constitutional claims,
there are two additional reasons to do so here.
First, the parties do not meaningfully address the stateconstitutional claims in their cross-motions for summary
judgment, effectively treating them as coextensive with

the federal-constitutional claims here. The Pennsylvania
Supreme Court, however, has held that Pennsylvania's “Free
and Equal Elections” Clause is not necessarily coextensive
with the 14th Amendment. See League of Women Voters v.
Commonwealth, 645 Pa. 1, 178 A.3d 737, 812-813 (2018)
(referring to the Pennsylvania Free and Equal Elections
Clause as employing a “separate and distinct standard” than
that under the 14th Amendment to the U.S. Constitution).
Given the lack of briefing on this issue and out of deference
to the state courts to interpret their own state constitution, the
Court declines to exercise supplemental jurisdiction.
Second, several Defendants have asserted a defense of
sovereign immunity in this case. That defense does not apply
to Plaintiffs’ federal-constitutional claims under the Ex parte
Young doctrine. See Acosta v. Democratic City Comm., 288
F. Supp. 3d 597, 627 (E.D. Pa. 2018) (“Here, the doctrine
of Ex parte Young applies to Plaintiffs’ constitutional claims
for prospective injunctive and declaratory relief, and therefore
the First and Fourteenth Amendment claims are not barred
by the Eleventh Amendment. Secretary Cortés, as an officer
of the Pennsylvania Department of State, may be sued in his
individual and official capacities ‘for prospective injunctive
and declaratory relief to end continuing or ongoing violations
of federal law.’ ”). But sovereign immunity may apply to the
state-law claims, at least those against Secretary Boockvar.
The possibility of sovereign immunity potentially applying
here counsels in favor of declining supplemental jurisdiction
to decide the state-law claims.
*76 As such, all state-constitutional claims will be dismissed
without prejudice.

CONCLUSION
For the foregoing reasons, the Court will enter judgment
in favor of Defendants and against Plaintiffs on all federalconstitutional claims, decline to exercise supplemental
jurisdiction over the remaining state-law claims, and dismiss
all claims in this case. Because there is no just reason for
delay, the Court will also direct entry of final judgment under
Federal Rule of Civil Procedure 54(b). An appropriate order
follows.
All Citations
--- F.Supp.3d ----, 2020 WL 5997680

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1488 Case 2:20-cv-01771-PP Filed 12/07/20 Page 63 of 64 Document 58-5

63

Ex. 5

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1489 Case 2:20-cv-01771-PP Filed 12/07/20 Page 64 of 64 Document 58-5

64

Ex. 5

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

2020 WL 7012522
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued
on or after Jan. 1, 2007. See also U.S.Ct. of
Appeals 3rd Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.

DONALD J. TRUMP FOR

Secretary and county boards of elections to dismiss. Voters
and campaign appealed.

Holdings: The Court of Appeals, Bibas, Circuit Judge, held
that:
delay by President's reelection campaign in moving to amend
complaint second time was undue;
second amendment of complaint would have been futile;

PRESIDENT, INC.; Lawrence Roberts;
David John Henry, Appellants

county-to-county variations in processing votes from election
did not show discrimination;

v.
Secretary Commonwealth of
PENNSYLVANIA; Allegheny County
Board of Elections; Centre County
Board of Elections; Chester County
Board of Elections; Delaware County
Board of Elections; Montgomery County
Board of Elections; Northampton
County Board of Elections;

failure of President's reelection campaign to request
injunction pending appeal from district court or show that
it could not have made that request barred campaign from
pursuing that motion on appeal;

Philadelphia County Board of Elections

Affirmed.

No. 20-3371
|
Submitted Under Third Circuit
L.A.R. 34.1(a) on November 25, 2020
|
(Filed: November 27, 2020)
Synopsis
Background: Voters and President's reelection campaign
brought action against Secretary of the Commonwealth
of Pennsylvania and county boards of elections, seeking
to invalidate millions of votes cast by Pennsylvanians in
presidential election during COVID-19 pandemic based on
allegations that Secretary's authorization of notice-and-cure
procedure for procedurally defective mail-in ballots violated
the Equal Protection Clause and that poll watchers were
impermissibly excluded from canvass. The United States
District Court for the Middle District of Pennsylvania,
Matthew W. Brann, J., 2020 WL 6821992, granted motion by

campaign likely could not succeed on merits;
campaign likely would not suffer irreparable harm; and
granting relief would not have been equitable.

On Appeal from the United States District Court for the
Middle District of Pennsylvania (D.C. No. 4:20-cv-02078),
District Judge: Honorable Matthew W. Brann
Attorneys and Law Firms
Brian C. Caffrey, Esq., Keith E. Kendall, Esq., Marc A.
Scaringi, Esq., Scaringi & Scaringi, Harrisburg, PA, Rudolph
W. Giuliani, Esq., New York, NY, for Plaintiffs-Appellants
Barry H. Berke, Esq., Dani R. James, Esq., Kramer Levin
Naftalis & Frankel, New York, NY, Nicole J. Boland, Esq.,
Stephen Moniak, Esq., Keli M. Neary, Esq., Karen M.
Romano, Esq., Office of Attorney General of Pennsylvania,
Harrisburg, PA, Daniel T. Brier, Esq., John B. Dempsey,
Esq., Donna A. Walsh, Esq., Myers Brier & Kelly, Scranton,
PA, Dani R. James, Esq., Kramer Levin Naftalis &
Frankel, New York, NY, for Defendant - Appellee Secretary
Commonwealth of Pennsylvania

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1490 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 10 Document 58-6

1

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

Mark A. Aronchick, Esq., John Coit, Esq., Michele D.
Hangley, Esq., John B. Hill, Esq., Christina Matthias, Esq.,
Robert A. Wiygul, Esq., Hangley Aronchick Segal Pudlin &
Schiller, Philadelphia, PA, Stephen H. Barrett, Esq., Brian H.
Benjet, Esq., Ilana H. Eisenstein, Esq., Ben C. Fabens-Lassen,
Esq., Rachel A.H. Horton, Esq., Danielle T. Morrison, Esq.,
Jayne A. Risk, Esq., DLA Piper, Philadelphia, PA, Virginia
S. Scott, Esq., Andrew F. Szefi, Esq., Office of Allegheny
County, Law Department, Pittsburgh, PA, for Defendant Appellee Allegheny County Board of Elections
Mark A. Aronchick, Esq., John Coit, Esq., Michele D.
Hangley, Esq., John B. Hill, Esq., Christina Matthias,
Esq., Robert A. Wiygul, Esq., Hangley Aronchick Segal
Pudlin & Schiller, Philadelphia, PA, Stephen H. Barrett,
Esq., Brian H. Benjet, Esq., Ilana H. Eisenstein, Esq.,
Ben C. Fabens-Lassen, Esq., Rachel A.H. Horton, Esq.,
Danielle T. Morrison, Esq., Jayne A. Risk, Esq., DLA Piper,
Philadelphia, PA, for Defendants-Appellees Chester County
Board of Elections, Montgomery County Board of Elections,
Philadelphia County Board of Elections
Elizabeth A. Dupuis, Esq., Molly E. Meacham, Esq., Babst
Calland, State College, PA, for Defendant-Appellee Centre
County Board of Elections
Timothy P. Brennan, Esq., Brian Jeffrey Taylor, Northampton
County Office of the Solicitor, Easton, PA, Molly
E. Meacham, Esq., Babst Calland, Pittsburgh, PA, for
Defendant-Appellee Northampton County Board of Elections
Terence M. Grugan, Esq., Timothy D. Katsiff, Esq., Edward
D. Rogers, Esq., Elizabeth V. Wingfield, Esq., Ballard Spahr,
Philadelphia, PA, Molly E. Meacham, Esq., Babst Calland,
Pittsburgh, PA, for Defendant-Appellee Delaware County
Board of Elections
Adriel I. Cepeda Derieux, Esq., Sophia Lin Lakin, Esq.,
American Civil Liberties Union, New York, NY, Witold J.
Walczak, Esq., American Civil Liberties Union, Pittsburgh,
PA, Claudia De Palma, Esq., Benjamin D. Geffen, Esq.,
Mary M. McKenzie, Esq., Public Interest Law Center
of Philadelphia, Philadelphia, PA, Jon M. Greenbaum,
Esq., Lawyers' Committee for Civil Rights Under Law,
Washington, DC, David M. Zionts, Esq., Covington
& Burling, Washington, DC, for Intervenor-DefendantsAppellees Joseph Ayeni, Black Political Empowerment
Project, Common Cause of Pennsylvania, Stephanie Higgins,
Meril Lara, League of Women Voters of Pennsylvania,
Ricardo Morales, Pennsylvania State Conference of NAACP

Branches, Natalie Price, Tim Stevens, Taylor Stover, Lucia
Gajda
Marc E. Elias, Esq., Ariel B. Glickman, Esq., Laura Hill, Esq.,
Lalitha D. Madduri, Esq., Uzoma N. Nkwonta, Esq., Perkins
Coie, Washington, DC, Seth P. Waxman, Esq., Wilmer Cutler
Pickering Hale & Dorr, Washington, DC, for IntervenorDefendant - Appellee Democratic National Committee
Remy Green, Esq., Cohen Green, Ridgewood, NY, for
Amicus Appellee Democrats Abroad
James P. DeAngelo, Esq., McNees Wallace & Nurick,
Harrisburg, PA, for Amicus Curiae Christine T. Whitman
Matthew Stiegler, Esq., Law Office of Matthew Stiegler,
Philadelphia, PA, for Amicus Appellee Erwin Chemerinsky
Before: SMITH, Chief Judge, and CHAGARES and BIBAS,
Circuit Judges

OPINION*
*

This disposition is not an opinion of the full Court and,
under I.O.P. 5.7, is not binding precedent.

BIBAS, Circuit Judge.
*1 Free, fair elections are the lifeblood of our democracy.
Charges of unfairness are serious. But calling an election
unfair does not make it so. Charges require specific
allegations and then proof. We have neither here.
The Trump Presidential Campaign asserts that Pennsylvania's
2020 election was unfair. But as lawyer Rudolph Giuliani
stressed, the Campaign “doesn't plead fraud. ... [T]his is not
a fraud case.” Mot. to Dismiss Hr'g Tr. 118:19–20, 137:18.
Instead, it objects that Pennsylvania's Secretary of State and
some counties restricted poll watchers and let voters fix
technical defects in their mail-in ballots. It offers nothing
more.
This case is not about whether those claims are true. Rather,
the Campaign appeals on a very narrow ground: whether
the District Court abused its discretion in not letting the
Campaign amend its complaint a second time. It did not.
Most of the claims in the Second Amended Complaint boil
down to issues of state law. But Pennsylvania law is willing

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1491 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 10 Document 58-6

2

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

to overlook many technical defects. It favors counting votes
as long as there is no fraud. Indeed, the Campaign has already
litigated and lost many of these issues in state courts.
The Campaign tries to repackage these state-law claims as
unconstitutional discrimination. Yet its allegations are vague
and conclusory. It never alleges that anyone treated the Trump
campaign or Trump votes worse than it treated the Biden
campaign or Biden votes. And federal law does not require
poll watchers or specify how they may observe. It also says
nothing about curing technical state-law errors in ballots.
Each of these defects is fatal, and the proposed Second
Amended Complaint does not fix them. So the District Court
properly denied leave to amend again.
Nor does the Campaign deserve an injunction to undo
Pennsylvania's certification of its votes. The Campaign's
claims have no merit. The number of ballots it specifically
challenges is far smaller than the roughly 81,000-vote margin
of victory. And it never claims fraud or that any votes were
cast by illegal voters. Plus, tossing out millions of mail-in
ballots would be drastic and unprecedented, disenfranchising
a huge swath of the electorate and upsetting all down-ballot
races too. That remedy would be grossly disproportionate to
the procedural challenges raised. So we deny the motion for
an injunction pending appeal.

I. Background
A. Pennsylvania election law
In Pennsylvania, each county runs its own elections. 25 Pa.
Stat. § 2641(a). Counties choose and staff polling places. §
2642(b), (d). They buy their own ballot boxes and voting
booths and machines. § 2642(c). They even count the votes
and post the results. § 2642(k), (l). In all this, counties
must follow Pennsylvania's Election Code and regulations.
But counties can, and do, adopt rules and guidance for
election officers and electors. § 2642(f). And they are charged
with ensuring that elections are “honestly, efficiently, and
uniformly conducted.” § 2642(g).
1. Poll watchers and representatives. Counties must admit
qualified poll “watchers” to observe votes being tallied. 25
Pa. Stat. § 2650(a). Poll watchers must be registered to vote in
the county where they will serve. § 2687(b). Each candidate
can pick two poll watchers per election district; each political
party, three. § 2687(a). The poll watchers remain at the
polling place while election officials count in-person ballots.

§ 2687(b). They can ask to check voting lists. Id. And they
get to be present when officials open and count all the mailin ballots. § 3146.8(b). Likewise, candidates’ and political
parties’ “representatives” may be present when absentee
and mail-in ballots are inspected, opened, or counted, or
when provisional ballots are examined. §§ 2602(a.1), (q.1),
3050(a.4)(4), 3146.8(g)(1.1) & (2); see also § 3050(a.4)(12)
(defining provisional ballots as those cast by voters whose
voter registration cannot be verified right away).
*2 Still, counties have some control over these poll watchers
and representatives. The Election Code does not tell counties
how they must accommodate them. Counties need only allow
them “in the polling place” or “in the room” where ballots are
being inspected, opened, or counted. §§ 2687(b), 3050(a.4)
(4), 3146.8(g)(1.1) & (2). Counties are expected to set up “an
enclosed space” for vote counters at the polling place, and
poll watchers “shall remain outside the enclosed space.” §
2687(b). So the counties decide where the watchers stand and
how close they get to the vote counters.
2. Mail-in ballots. For decades, Pennsylvania let only certain
people, like members of the military and their families, vote
by mail. See, e.g., 25 Pa. Stat. § 3146.1. But last year, as part
of a bipartisan election reform, Pennsylvania expanded mailin voting. Act of Oct. 31, 2019, Pub. L. No. 552, sec. 8, §
1310-D, 2019 Pa. Legis. Serv. Act 2019-77 (S.B. 421). Now,
any Pennsylvania voter can vote by mail for any reason. See
25 Pa. Stat. §§ 2602(t), 3150.11(a).
To vote by mail, a Pennsylvania voter must take several steps.
First, he (or she) must ask the State (Commonwealth) or his
county for a mail-in ballot. 25 Pa. Stat. § 3150.12(a). To
do that, he must submit a signed application with his name,
date of birth, address, and other information. § 3150.12(b)–
(c). He must also provide a driver's license number, the last
four digits of his Social Security number, or the like. §§
2602(z.5), 3150.12b(a), (c). Once the application is correct
and complete, the county will approve it. See §§ 3150.12a(a),
3150.12b.
Close to the election, the county will mail the voter a mailin ballot package. § 3150.15. The package has a ballot
and two envelopes. The smaller envelope (also called the
secrecy envelope) is stamped “Official Election Ballot.” §
3150.14(a). The larger envelope is stamped with the county
board of election's name and address and bears a printed voter
declaration. Id.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1492 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 10 Document 58-6

3

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

Next, the voter fills out the ballot. § 3150.16(a). He then folds
the ballot; puts it into the first, smaller secrecy envelope; and
seals it. Id. After that, he puts the secrecy envelope inside the
larger envelope and seals that too. Id. He must also “fill out,
date and sign the declaration printed” on the outside of the
larger envelope. §§ 3150.16(a), 3150.14(b). The declaration
for the November 2020 election read thus:
I hereby declare that I am qualified to vote from the below
stated address at this election; that I have not already voted
in this election; and I further declare that I marked my
ballot in secret. I am qualified to vote the enclosed ballot.
I understand I am no longer eligible to vote at my polling
place after I return my voted ballot. However, if my ballot
is not received by the county, I understand I may only
vote by provisional ballot at my polling place, unless I
surrender my balloting materials, to be voided, to the judge
of elections at my polling place.
[BAR CODE]
Voter, sign or mark here/Votante firme o mar[q]ue aqui
X_______________________________________

Date of signing (MM/DD/YYYY)/Fechade firme (MM/
DD/YYYY)
_________________________________________
Voter, print name/Votante, nombre en letra de impreta
In re: Canvass of Absentee and Mail-in Ballots of November
3, 2020 General Election, Nos. 31–35 EAP & 29 WAP
2020,––– A.3d ––––, ––––, 2020 WL 6875017, at *4 (Pa.
Nov. 23, 2020). Once the voter assembles the ballot packet,
he can mail it back or deliver it in person. 25 Pa. Stat. §
3150.16(a).
Not every voter can be expected to follow this process
perfectly. Some forget one of the envelopes. Others forget to
sign on the dotted line. Some major errors will invalidate a
ballot. For instance, counties may not count mail-in ballots
that lack secrecy envelopes. Pa. Dem. Party v. Boockvar, 238
A.3d 345, 378–80 (Pa. 2020). But the Election Code says
nothing about what should happen if a county notices these
errors before election day. Some counties stay silent and do
not count the ballots; others contact the voters and give them
a chance to correct their errors.

B. Facts and procedural history
*3 On appeal from the dismissal of a complaint, we take the
factual allegations as true:
1. Mail-in voting. For months, Pennsylvanians went to the
polls, so to speak. The first batch of mail-in ballots went
out to voters in late September. As they trickled back in,
election officials noticed that some voters had not followed
the rules. Some ballots were not in secrecy envelopes,
so those packages were lighter and thinner than complete
ballot packages. Others had declarations that voters had not
completed. Some counties did not notify voters about these
defective ballots. Others, including the counties named in this
suit, decided to reach out to these voters to let them cure their
mistakes by voting provisionally on Election Day or asking
for a replacement ballot.
2. Election Day. Though more than two million
Pennsylvanians voted by mail, even more voted in person. On
Election Day, November 3, the Campaign set up poll watchers
at polling places around the Commonwealth. Appellees’
election officials kept poll watchers and representatives away
from where ballots were opened, counted, and tallied. In
Philadelphia, for instance, poll watchers were kept six to
twenty-five feet back from officials. In comparison, other,
“Republican[-]controlled” counties did give the Campaign's
poll watchers and representatives full access. Second Am.
Compl. ¶¶ 151, 154.
In all, nearly seven million Pennsylvanians voted, more
than a third of them by mail. Unofficial Returns for the
2020 Presidential Election, Pa. Dep't of State, https://
www.electionreturns.pa.gov/ (last visited Nov. 27, 2020). As
of today, former Vice President Biden leads President Trump
in Pennsylvania by 81,660 votes. Id.
Pennsylvania's counties certified their election results by
the November 23 certification deadline. 25 Pa. Stat.
§ 2642(k). The next morning, the Secretary of State
(technically, Secretary of the Commonwealth) certified the
vote totals, and the Governor signed the Certificate of
Ascertainment and sent it to the U.S. Archivist. Department
of State Certifies Presidential Election Results, PA
Media, https://www media.pa.gov/Pages/State-details.aspx?
newsid=435 (last visited Nov. 27, 2020). The certified margin
of victory was 80,555 votes. Id.
3. This lawsuit. Almost a week after the election, the
Campaign (as well as two voters) sued seven Pennsylvania

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1493 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 10 Document 58-6

4

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

counties and Secretary of State Kathy Boockvar. It alleged
that they had violated the Due Process, Equal Protection,
and Electors and Elections Clauses of the U.S. Constitution
by taking two basic actions: First, the counties (encouraged
by Secretary Boockvar) identified defective mail-in ballots
early and told voters how to fix them. Second, they kept poll
watchers and representatives from watching officials count all
ballots.
So far, the Campaign has filed or tried to file three complaints.
The original Complaint, filed November 9, set out six counts
(plus a duplicate). After Boockvar and the counties moved to
dismiss, on November 15 the Campaign filed a First Amended
Complaint as of right, dropping four of the six counts (plus the
duplicate), including all the counts relating to poll watchers
and representatives. The Campaign sought a preliminary
injunction to block certifying the election results. Boockvar
and the counties again moved to dismiss. On November 18,
the Campaign sought to file a Second Amended Complaint,
resurrecting four dropped claims from the original Complaint
and adding three more about how Philadelphia had blocked
poll watching.
*4 The District Court ended these volleys, denying leave
to file the Second Amended Complaint. Instead, it dismissed
the First Amended Complaint with prejudice and denied the
Campaign's motion for a preliminary injunction as moot.
Donald J. Trump for President, Inc. v. Boockvar, No. 4:20cv-02078, ––– F. Supp. 3d ––––, 2020 WL 6821992 (M.D.
Pa. Nov. 21, 2020). In doing so, it held that the individual
voters lacked standing. Id. at ––––, at *5–6. We commend
the District Court for its fast, fair, patient handling of this
demanding litigation.
4. This appeal. The Campaign filed this appeal on Sunday,
November 22, and we granted its motion to expedite. The
Campaign filed its brief and another motion November 23;
opposing briefs and filings arrived the next day. We are
issuing this opinion nonprecedentially so we can rule by
November 27.
The Campaign does not challenge the District Court's finding
that the voters lacked standing, so we do not consider their
claims. On appeal, it seeks only narrow relief: to overturn
the District Court's decision not to let it amend its complaint
again. We address that claim in Part II. Separately, the
Campaign asks us for an injunction to prevent the certified
vote totals from taking effect. We address that claim in Part
III.

II. The District Court Properly Denied Leave To Amend
the Complaint Again
After one amendment, the District Court denied the
Campaign's motion to amend the complaint a second time.
We review that denial for abuse of discretion. Premier Comp.
Sol., LLC v. UPMC, 970 F.3d 316, 318–19 (3d Cir. 2020). But
on any standard of review, the court got it right.
Courts should grant leave to amend “freely ... when justice so
requires.” Fed. R. Civ. P. 15(a)(2). In civil-rights cases, that
means granting leave unless “amendment would be futile or
inequitable.” Vorchheimer v. Phila. Owners Ass'n, 903 F.3d
100, 113 (3d Cir. 2018); Cureton v. NCAA, 252 F.3d 267,
272–73 (3d Cir. 2001) (giving undue delay as an example
of inequity). Here, the Campaign's request fails as both
inequitable and futile.
A. The Campaign's delay was undue, given its stress on
needing to resolve the case by November 23
When the Campaign was before the District Court, it
focused its arguments on the need to resolve the case by
Pennsylvania's deadline for counties to certify their votes:
Monday, November 23. Indeed, all three iterations of the
complaint focused their prayers for relief on blocking the
certification of the vote tally. The Campaign said it could get
no “meaningful remedy” after that date. Br. in Supp. of Mot.
for TRO & PI, Dkt. 89-1, at 4.
The Campaign filed its First Amended Complaint on
November 15, eight days before the certification deadline. In
response to several pending motions to dismiss, it dropped
many of the challenged counts from the original Complaint.
It did not then move to file a Second Amended Complaint
until November 18, when its opposition to the new motions to
dismiss was due. And it did not file a brief in support of that
motion until Friday, November 20. Certification was three
days away.
As the District Court rightly noted, amending that close to the
deadline would have delayed resolving the issues. True, delay
alone is not enough to bar amendment. Cureton, 252 F.3d
at 273. But “at some point, the delay will become ‘undue,’
placing an unwarranted burden on the court.” Id. (quoting
Adams v. Gould, Inc., 739 F.2d 858, 868 (3d Cir. 1984)).
The Campaign's motion would have done just that. It would

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1494 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 10 Document 58-6

5

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

have mooted the existing motions to dismiss and required new
briefing, possibly new oral argument, and a reasoned judicial
opinion within seventy-two hours over a weekend. That is too
much to ask—especially since the proposed Second Amended
Complaint largely repleaded many claims abandoned by the
first one. Cf. Rolo v. City Investing Co. Liquidating Tr., 155
F.3d 644, 654–55 (3d Cir. 1998) (affirming denial of leave to
amend because the movant sought largely to “replead facts
and arguments that could have been pled much earlier”).
*5 Having repeatedly stressed the certification deadline, the
Campaign cannot now pivot and object that the District Court
abused its discretion by holding the Campaign to that very
deadline. It did not.
B. Amending the Complaint again would have been
futile
The Campaign focuses on critiquing the District Court's
discussion of undue delay. Though the court properly rested
on that ground, we can affirm on any ground supported by
the record. Another ground also supports its denial of leave
to amend: it would have been futile.
1. The Campaign had to plead plausible facts, not just
conclusory allegations. Plaintiffs must do more than allege
conclusions. Rather, “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007)). “Threadbare recitals of the elements of
a cause of action, supported by mere conclusory statements,
do not suffice.” Id. The Second Amended Complaint does not
meet Twombly and Iqbal’s baseline standard of specifics.
To start, note what it does not allege: fraud. Indeed, in
oral argument before the District Court, Campaign lawyer
Rudolph Giuliani conceded that the Campaign “doesn't plead
fraud.” Mot. to Dismiss Hr'g Tr. 118:19–20 (Nov. 17, 2020).
He reiterated: “If we had alleged fraud, yes, but this is not a
fraud case.” Id. at 137:18.
Though it alleges many conclusions, the Second Amended
Complaint is light on facts. Take the nearly identical
paragraphs introducing Counts One, Two, Four, and Six:
“Democrats who controlled the Defendant County Election
Boards engaged in a deliberate scheme of intentional and
purposeful discrimination ... by excluding Republican and
Trump Campaign observers from the canvassing of the mail

ballots in order to conceal their decision not to enforce
[certain ballot] requirements.” Second Am. Compl. ¶¶167,
193, 222, 252. That is conclusory. So is the claim that,
“[u]pon information and belief, a substantial portion of
the approximately 1.5 million absentee and mail votes in
Defendant Counties should not have been counted.” Id.
¶¶168, 194, 223, 253. “Upon information and belief” is a
lawyerly way of saying that the Campaign does not know that
something is a fact but just suspects it or has heard it. “While
legal conclusions can provide the framework of a complaint,
they must be supported by factual allegations.” Iqbal, 556
U.S. at 679, 129 S.Ct. 1937. Yet the Campaign offers no
specific facts to back up these claims.
2. The Campaign has already litigated and lost most of these
issues. Many of the Second Amended Complaint's claims
have already had their day in court. The Campaign cannot
use this lawsuit to collaterally attack those prior rulings.
On Counts One, Two, Four, and Six, the Campaign has
already litigated whether ballots that lack a handwritten name,
address, or date on the outer envelope must be disqualified.
See In re: Canvass of Absentee and Mail-in Ballots, ––– A.3d
at ––––, 2020 WL 6875017, at *1. The Pennsylvania Supreme
Court ruled against the Campaign, holding: “[T]he Election
Code does not require boards of elections to disqualify mailin or absentee ballots submitted by qualified electors who
signed the declaration on their ballot's outer envelope but did
not handwrite their name, their address, and/or date, where
no fraud or irregularity has been alleged.” Id. at ––––, at
*1. That holding undermines the Campaign's suggestions that
defective ballots should not have been counted.
*6 Counts One and Two also challenge the requirement
that poll watchers be registered electors of the county they
wish to observe and that observers be Pennsylvania lawyers.
But a federal district court has already held “that the countyresidency requirement for poll watching does not, as applied
to the particular circumstances of this election, burden any of
[the Campaign's] fundamental constitutional rights.” Donald
J. Trump for President, Inc. v. Boockvar, No. 2:20-cv-966,
––– F. Supp. 3d ––––, ––––, 2020 WL 5997680, at *66
(W.D. Pa. Oct. 10, 2020). The Campaign never appealed that
decision, so it is bound by it.
Count Seven alleges that Philadelphia's Board of Elections
violated due process by obstructing poll watchers and
representatives. But nothing in the Due Process Clause
requires having poll watchers or representatives, let alone
watchers from outside a county or less than eighteen feet away

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1495 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 10 Document 58-6

6

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

from the nearest table. The Campaign cites no authority for
those propositions, and we know of none. (Ditto for noticeand-cure procedures.) And the Campaign litigated and lost
that claim under state law too. The Pennsylvania Supreme
Court held that the Election Code requires only that poll
watchers be in the room, not that they be within any specific
distance of the ballots. In re Canvassing Observation Appeal
of: City of Phila. Bd. of Electors, No. 30 EAP 2020, ––– A.3d
––––, ––––, 2020 WL 6737895, at *8–9 (Pa. Nov. 17, 2020).
The Campaign does not even challenge the dismissal of
Counts Three, Five, and Nine, the Electors and Elections
Clause counts. It concedes that under our recent decision, it
lacks standing to pursue alleged violations of those clauses.
Bognet v. Sec'y Commonwealth of Pa., No. 20-3214, ––– F.3d
––––, ––––, 2020 WL 6686120, at *6–9 (3d Cir. Nov. 13,
2020). Given its concession, we need not consider the issue
any more.
The Second Amended Complaint thus boils down to the
equal-protection claims in Counts Two, Four, Six, and Eight.
They require not violations of state law, but discrimination in
applying it. Those claims fail too.
3. The Campaign never pleads that any defendant treated
the Trump and Biden campaigns or votes differently. A
violation of the Equal Protection Clause requires more than
variation from county to county. It requires unequal treatment
of similarly situated parties. But the Campaign never pleads
or alleges that anyone treated it differently from the Biden
campaign. Count One alleges that the counties refused to
credential the Campaign's poll watchers or kept them behind
metal barricades, away from the ballots. It never alleges
that other campaigns’ poll watchers or representatives were
treated differently. Count Two alleges that an unnamed lawyer
was able to watch all aspects of voting in York County,
while poll watchers in Philadelphia were not. It also makes
a claim about one Jared M. Mellott, who was able to poll
watch in York County. Counts Four and Six allege that poll
watcher George Gallenthin had no issues in Bucks County but
was barred from watching in Philadelphia. And Count Eight
alleges that Philadelphia officials kept Jeremy Mercer too far
away to verify that ballots were properly filled out. None of
these counts alleges facts showing improper vote counting.
And none alleges facts showing that the Trump campaign
was singled out for adverse treatment. The Campaign cites
no authority suggesting that an actor discriminates by treating
people equally while harboring a partisan motive, and we
know of none.

These county-to-county variations do not show
discrimination. “[C]ounties may, consistent with equal
protection, employ entirely different election procedures and
voting systems within a single state.” Donald J. Trump for
President, Inc., ––– F. Supp. 3d at ––––, 2020 WL 5997680, at
*44 (collecting cases). Even when boards of elections “vary ...
considerably” in how they decide to reject ballots, those
local differences in implementing statewide standards do not
violate equal protection. Ne. Ohio Coal. for the Homeless
v. Husted, 837 F.3d 612, 635–36 (6th Cir. 2016); see also
Wexler v. Anderson, 452 F.3d 1226, 1231–33 (11th Cir. 2006)
(recognizing that equal protection lets different counties use
different voting systems).
*7 Nor does Bush v. Gore help the Campaign. 531 U.S.
98, 121 S.Ct. 525, 148 L.Ed.2d 388 (2000) (per curiam).
There, the Florida Supreme Court had ratified treating ballots
unequally. Id. at 107, 121 S.Ct. 525. That was because the
principle it set forth, the “intent of the voter,” lacked any
“specific standards to ensure its equal application.” Id. at 105–
06, 121 S.Ct. 525. The lack of any standards at all empowered
officials to treat ballots arbitrarily, violating equal protection.
Id. Here, by contrast, Pennsylvania's Election Code gives
counties specific guidelines. To be sure, counties vary in
implementing that guidance, but that is normal. Reasonable
county-to-county variation is not discrimination. Bush v. Gore
does not federalize every jot and tittle of state election law.
4. The relief sought—throwing out millions of votes—is
unprecedented. Finally, the Second Amended Complaint
seeks breathtaking relief: barring the Commonwealth from
certifying its results or else declaring the election results
defective and ordering the Pennsylvania General Assembly,
not the voters, to choose Pennsylvania's presidential electors.
It cites no authority for this drastic remedy.
The closest the Campaign comes to justifying the relief
it seeks is citing Marks v. Stinson, 19 F.3d 873 (3d Cir.
1994). But those facts were a far cry from the ones here.
In Marks, the district court found that the Stinson campaign
had orchestrated “massive absentee ballot fraud, deception,
intimidation, harassment and forgery.” Id. at 887 (quoting
district court's tentative findings). It had lied to voters,
deceived election officials, and forged ballots. Id. at 877. We
remanded that case, instructing that “the district court should
not direct the certification of a candidate unless it finds, on the
basis of record evidence, that the designated candidate would
have won the election but for wrongdoing.” Id. at 889. And

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1496 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 10 Document 58-6

7

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

that seemed likely: the Stinson campaign had gotten about
600 net absentee-ballot applications (roughly 1000 minus 400
that were later rejected), more than the 461-vote margin of
victory. Id. at 876–77.
Here, however, there is no clear evidence of massive
absentee-ballot fraud or forgery. On the contrary, at oral
argument in the District Court, the Campaign specifically
disavowed any claim of fraud. And the margin of victory here
is not nearly as close: not 461 votes, but roughly 81,000.
Though district courts should freely give leave to amend, they
need not do so when amendment would be futile. Because the
Second Amended Complaint would not survive a motion to
dismiss, the District Court properly denied leave to file it.

III. No Stay or Injunction Is Warranted
We could stop here. Once we affirm the denial of leave
to amend, this case is over. Still, for completeness, we
address the Campaign's emergency motion to stay the effect
of certification. No stay or injunction is called for.
Though the Campaign styles its motion as seeking a stay or
preliminary injunction, what it really wants is an injunction
pending appeal. But it neither requested that from the District
Court during the appeal nor showed that it could not make that
request, as required by Federal Rule of Appellate Procedure
8(a)(2)(A). That failure bars the motion.
Even if we could grant relief, we would not.
Injunctions pending appeal, like preliminary injunctions, are
“extraordinary remed[ies] never awarded as of right.” Winter
v. NRDC, 555 U.S. 7, 24, 129 S.Ct. 365, 172 L.Ed.2d 249
(2008). For a stay or injunction pending appeal, the movant
must show both (1) a “strong” likelihood of success on the
merits and (2) irreparable injury absent a stay or injunction.
Hilton v. Braunskill, 481 U.S. 770, 776, 107 S.Ct. 2113,
95 L.Ed.2d 724 (1987). The first two factors are “the most
critical.” Nken v. Holder, 556 U.S. 418, 434, 129 S.Ct. 1749,
173 L.Ed.2d 550 (2009). After that, we also balance (3)
whether a stay or injunction will injure other interested parties
(also called the balance of equities) and (4) the public interest.
Hilton, 481 U.S. at 776, 107 S.Ct. 2113; In re Revel AC, Inc.,
802 F.3d 558, 568–71 (3d Cir. 2015). None of the four factors
favors taking this extraordinary step.

A. The Campaign has no strong likelihood of success on
the merits
*8 As discussed, the Campaign cannot win this lawsuit.
It conceded that it is not alleging election fraud. It has
already raised and lost most of these state-law issues, and
it cannot relitigate them here. It cites no federal authority
regulating poll watchers or notice and cure. It alleges no
specific discrimination. And it does not contest that it lacks
standing under the Elections and Electors Clauses. These
claims cannot succeed.
B. The Campaign faces no irreparable harm
The Campaign has not shown that denying relief will injure
it. “Upon information and belief,” it suspects that many of
the 1.5 million mail-in ballots in the challenged counties were
improperly counted. Second Am. Compl. ¶¶168, 194, 223,
253. But it challenges no specific ballots. The Campaign
alleges only that at most three specific voters cast ballots that
were not counted. Id. ¶237 (one voter); First Am. Compl.
¶¶15–16, 112 (three). And it never alleges that anyone except
a lawful voter cast a vote. Of the seven counties whose noticeand-cure procedures are challenged, four (including the three
most populous) represented that they gave notice to only
about 6,500 voters who sent in defective ballot packages.
Allegheny Cty. Opp. Mot. TRO & PI 7–8, D. Ct. Dkt. No. 193
(Nov. 20, 2020). The Campaign never disputed these numbers
or alleged its own. Even if 10,000 voters got notice and cured
their defective ballots, and every single one then voted for
Biden, that is less than an eighth of the margin of victory.
Without more facts, we will not extrapolate from these modest
numbers to postulate that the number of affected ballots
comes close to the certified margin of victory of 80,555 votes.
Denying relief will not move the needle.
Plus, states are primarily responsible for running federal
elections. U.S. Const. art. I, § 4, cl. 1; 3 U.S.C. § 5.
Pennsylvania law has detailed mechanisms for disputing
election results. 25 Pa. Stat. §§ 3261–3474. Because the
Campaign can raise these issues and seek relief through state
courts and then the U.S. Supreme Court, any harm may not be
irreparable. Touchston v. McDermott, 234 F.3d 1130, 1132–
33 (11th Cir. 2000) (per curiam) (en banc).
C. The balance of equities opposes disenfranchising
voters

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1497 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 10 Document 58-6

8

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

Nor would granting relief be equitable. The Campaign has
already litigated and lost most of these issues as gardenvariety state-law claims. It now tries to turn them into federal
constitutional claims but cannot. See Bognet, ––– F.3d at
––––, 2020 WL 6686120, at *11.
Even if it could, it has delayed bringing this suit. For instance,
in proposed Count Four, it challenges giving voters notice and
letting them cure ballot defects as violating equal protection.
The Campaign could have disputed these practices while they
were happening or during the canvassing period. Instead, it
waited almost a week after Election Day to file its original
complaint, almost another week to amend it, and then another
three days to amend it again. Its delay is inequitable, and
further delay would wreak further inequity.
And the Campaign's charges are selective. Though
Pennsylvanians cast 2.6 million mail-in ballots, the Campaign
challenges 1.5 million of them. It cherry-picks votes cast in
“Democratic-heavy counties” but not “those in Republicanheavy counties.” Second Am. Compl. ¶8. Without compelling
evidence of massive fraud, not even alleged here, we can
hardly grant such lopsided relief.

That court recently reiterated: “[T]he Election Code should
be liberally construed so as not to deprive, inter alia, electors
of their right to elect a candidate of their choice.” Pa. Dem.
Party, 238 A.3d at 356. Thus, unless there is evidence of
fraud, Pennsylvania law overlooks small ballot glitches and
respects the expressed intent of every lawful voter. In re:
Canvass of Absentee and Mail-in Ballots, 2020 WL 6875017,
at *1 (plurality opinion). In our federalist system, we must
respect Pennsylvania's approach to running elections. We will
not make more of ballot technicalities than Pennsylvania itself
does.
*****
Voters, not lawyers, choose the President. Ballots, not
briefs, decide elections. The ballots here are governed by
Pennsylvania election law. No federal law requires poll
watchers or specifies where they must live or how close they
may stand when votes are counted. Nor does federal law
govern whether to count ballots with minor state-law defects
or let voters cure those defects. Those are all issues of state
law, not ones that we can hear. And earlier lawsuits have
rejected those claims.

Granting relief would harm millions of Pennsylvania voters
too. The Campaign would have us set aside 1.5 million ballots
without even alleging fraud. As the deadline to certify votes
has already passed, granting relief would disenfranchise those
voters or sidestep the expressed will of the people. Tossing
out those ballots could disrupt every down-ballot race as well.
There is no allegation of fraud (let alone proof) to justify
harming those millions of voters as well as other candidates.

Seeking to turn those state-law claims into federal ones,
the Campaign claims discrimination. But its alchemy cannot
transmute lead into gold. The Campaign never alleges that
any ballot was fraudulent or cast by an illegal voter. It never
alleges that any defendant treated the Trump campaign or
its votes worse than it treated the Biden campaign or its
votes. Calling something discrimination does not make it so.
The Second Amended Complaint still suffers from these core
defects, so granting leave to amend would have been futile.

D. The public interest favors counting all lawful voters’
votes
*9 Lastly, relief would not serve the public interest.
Democracy depends on counting all lawful votes promptly
and finally, not setting them aside without weighty proof. The
public must have confidence that our Government honors and
respects their votes.

And there is no basis to grant the unprecedented injunction
sought here. First, for the reasons already given, the
Campaign is unlikely to succeed on the merits. Second, it
shows no irreparable harm, offering specific challenges to
many fewer ballots than the roughly 81,000-vote margin
of victory. Third, the Campaign is responsible for its delay
and repetitive litigation. Finally, the public interest strongly
favors finality, counting every lawful voter's vote, and not
disenfranchising millions of Pennsylvania voters who voted
by mail. Plus, discarding those votes could disrupt every other
election on the ballot.

What is more, throwing out those votes would conflict with
Pennsylvania election law. The Pennsylvania Supreme Court
has long “liberally construed” its Election Code “to protect
voters’ right to vote,” even when a ballot violates a technical
requirement. Shambach v. Bickhart, 577 Pa. 384, 845 A.2d
793, 802 (2004). “Technicalities should not be used to make
the right of the voter insecure.” Appeal of James, 377 Pa. 405,
105 A.2d 64, 66 (1954) (internal quotation marks omitted).

We will thus affirm the District Court's denial of leave to
amend, and we deny an injunction pending appeal. The
Campaign asked for a very fast briefing schedule, and we have

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1498 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 10 Document 58-6

9

Ex. 6

Donald J. Trump for President, Inc. v. Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

granted its request. Because the Campaign wants us to move
as fast as possible, we also deny oral argument. We grant all
motions to file overlength responses, to file amicus briefs,
and to supplement appendices. We deny all other outstanding
motions as moot. This Court's mandate shall issue at once.
End of Document

All Citations
--- Fed.Appx. ----, 2020 WL 7012522

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1499 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 10 Document 58-6

10

Ex. 6

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

2020 WL 7094866
Only the Westlaw citation is currently available.
United States Court of Appeals, Eleventh Circuit.

L. Lin WOOD, Jr., Plaintiff-Appellant,
v.
Brad RAFFENSPERGER, in his
official capacity as Secretary of State
of the State of Georgia, Rebecca N.
Sullivan, in her official capacity as Vice
Chair of the Georgia State Election
Board, et al., Defendants-Appellees.
No. 20-14418
|
(December 5, 2020)
Synopsis
Background: Voter brought post-election action against
Georgia election officials alleging violations of equal
protection, due process, and election and electors clauses and
seeking to enjoin certification of general election results, to
secure a new recount under different rules, and to establish
new rules for upcoming runoff election. The United States
District Court for the Northern District of Georgia, No. 1:20cv-04651-SDG, Steven D. Grimberg, J., 2020 WL 6817513,
denied voter's motion for temporary restraining order (TRO).
Voter appealed.

Attorneys and Law Firms
Ray S. Smith, III, Smith & Liss LLC, Atlanta, GA, for
Plaintiff-Appellant.
Charlene S. McGowan, Christopher Michael Carr, Russell
D. Willard, Attorney General's Office, Atlanta, GA, for
Defendants-Appellees.
Marc Erik Elias, Amanda Rebecca Callais, Perkins Coie,
LLP, Washington, DC, Kevin J. Hamilton, Perkins Coie, LLP,
Seattle, WA, Susan Coppedge, U.S. Attorney's Office, Halsey
G. Knapp, Jr., Joyce Gist Lewis, Adam M. Sparks, Krevolin
& Horst, LLC, Atlanta, GA, for Intervenors-Appellees.
Jon M. Greenbaum, Lawyers' Committee for Civil Rights
Under Law, Washington, DC, Bryan L. Sells, Law Office
of Bryan L. Sells, LLC, Atlanta, GA, for Amici Curiae
Helen Butler, Georgia State Conference of the NAACP,
Georgia Coalition for the Peoples' Agenda, James Woodall,
and Melvin Ivey.
Amanda J. Beane, Perkins Coie, LLP, Seattle, WA, Emily
Rachel Brailey, Alexi M. Velez, Perkins Coie, LLP,
Washington, DC, Gillian Kuhlmann, Perkins Coie, LLP, Los
Angeles, CA, Matthew Joseph Mertens, Perkins Coie, LLP,
Portland, OR, for Service.
Appeal from the United States District Court for the Northern
District of Georgia, D.C. Docket No. 1:20-cv-04651-SDG
Before WILLIAM PRYOR, Chief Judge, JILL PRYOR and
LAGOA, Circuit Judges.
Opinion

Holdings: The Court of Appeals, William H. Pryor, Chief
Judge, held that:
voter did not satisfy the injury-in-fact requirement for Article
III standing;
voter's requests to delay certification of election results and
commence a new recount were moot; and
exception to mootness doctrine for issues that are capable of
repetition yet evading review did not apply.
Affirmed.

WILLIAM PRYOR, Chief Judge:
*1 This appeal requires us to decide whether we have
jurisdiction over an appeal from the denial of a request for
emergency relief in a post-election lawsuit. Ten days after the
presidential election, L. Lin Wood Jr., a Georgia voter, sued
state election officials to enjoin certification of the general
election results, to secure a new recount under different rules,
and to establish new rules for an upcoming runoff election.
Wood alleged that the extant absentee-ballot and recount
procedures violated Georgia law and, as a result, his federal
constitutional rights. After Wood moved for emergency relief,
the district court denied his motion. We agree with the
district court that Wood lacks standing to sue because he
fails to allege a particularized injury. And because Georgia

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1500

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 58-7

1

Ex. 7

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

has already certified its election results and its slate of
presidential electors, Wood's requests for emergency relief
are moot to the extent they concern the 2020 election. The
Constitution makes clear that federal courts are courts of
limited jurisdiction, U.S. Const. art. III; we may not entertain
post-election contests about garden-variety issues of vote
counting and misconduct that may properly be filed in state
courts. We affirm.

I. BACKGROUND
Secretary of State Brad Raffensperger is the “chief election
official” of Georgia. Ga. Code Ann. § 21-2-50(b). He
manages the state system of elections and chairs the State
Election Board. Id. § 21-2-30(a), (d). The Board has the
authority to promulgate rules and regulations to ensure
uniformity in the practices of county election officials and,
“consistent with law,” to aid “the fair, legal, and orderly
conduct of primaries and elections.” Id. § 21-2-31(1)–
(2). The Board may also publish and distribute to county
election officials a compilation of Georgia's election laws
and regulations. Id. § 21-2-31(3). Many of these laws and
regulations govern absentee voting.
Any voter in Georgia may vote by absentee ballot. Id. §
21-2-380(b). State law prescribes the procedures by which
a voter may request and submit an absentee ballot. Id. §§
21-2-381; 21-2-384; 21-2-385. The ballot comes with an oath,
which the voter must sign and return with his ballot. Id.
§ 21-2-385(a). State law also prescribes the procedures for
how county election officials must certify and count absentee
ballots. Id. § 21-2-386(a). It directs the official to “compare
the identifying information on the oath with the information
on file” and “compare the signature or mark on the oath with
the signature or mark” on file. Id. § 21-2-386(a)(1)(B). If
everything appears correct, the official certifies the ballot. Id.
But if there is a problem, such as a signature that does not
match, the official is to “write across the face of the envelope
‘Rejected.’ ” Id. § 21-2-386(a)(1)(C). The government must
then notify the voter of this rejection, and the voter may cure
the problem. Id.
In November 2019, the Democratic Party of Georgia,
the Democratic Senatorial Campaign Committee, and the
Democratic Congressional Campaign Committee challenged
Georgia's absentee ballot procedures as unconstitutional
under the First and Fourteenth Amendments. They sued
Secretary Raffensperger and members of the Board for

declaratory and injunctive relief. Secretary Raffensperger and
the Board maintained that the procedures were constitutional,
but they agreed to promulgate regulations to ensure uniform
practices across counties. In March 2020, the parties entered
into a settlement agreement and dismissed the suit.
*2 In the settlement agreement, Secretary Raffensperger
and the Board agreed to issue an Official Election Bulletin
regarding the review of signatures on absentee ballots. The
Bulletin instructed officials to review the voter's signature
with the following process:
If the registrar or absentee ballot clerk determines that the
voter's signature on the mail-in absentee ballot envelope
does not match any of the voter's signatures on file ...,
the registrar or absentee ballot clerk must seek review
from two other registrars, deputy registrars, or absentee
ballot clerks. A mail-in absentee ballot shall not be rejected
unless a majority of the registrars, deputy registrars, or
absentee ballot clerks reviewing the signature agree that the
signature does not match any of the voter's signatures on
file ....
Secretary Raffensperger and the Board also agreed to train
county election officials to follow this process.
This procedure has been in place for at least three elections
since March, including the general election on November 3,
2020. Over one million Georgians voted by absentee ballot
in the general election. No one challenged the settlement
agreement until the filing of this action. By then, the general
election returns had been tallied and a statewide hand recount
of the presidential election results was underway.
On November 13, L. Lin Wood Jr. sued Secretary
Raffensperger and the members of the Board in the district
court. Wood alleged that he sued “in his capacity as a private
citizen.” He is a registered voter in Fulton County, Georgia,
and a donor to various 2020 Republican candidates. His
amended complaint alleged that the settlement agreement
violates state law. As a result, he contends, it violates
the Election Clause of Article I; the Electors Clause of
Article II; and the Equal Protection Clause of the Fourteenth
Amendment. See U.S. Const. art. I, § 4, cl. 1; id. art. II, § 1, cl.
2; id. amend. XIV, § 1. Wood also alleged that irregularities
in the hand recount violated his rights under the Due Process
Clause of the Fourteenth Amendment. Id. amend. XIV, § 1.
State law requires that such recounts be done in public view,
and it permits the Board to promulgate policies that facilitate
recounting. Ga. Code Ann. § 21-2-498(c)(4), (d). Secretary

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1501

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 7 Document 58-7

2

Ex. 7

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

Raffensperger directed county election officials to designate
viewing areas for members of the public and the news media
to observe the recount. He also permitted the Democratic and
Republican Parties to designate special recount monitors.
Wood alleged that officials ignored their own rules and
denied Wood and President Donald Trump's campaign
“meaningful access to observe and monitor the electoral
process.” Although Wood did not personally attempt to
observe or monitor the recount, he alleged that Secretary
Raffensperger and the Board violated his “vested interest in
being present and having meaningful access to observe and
monitor the electoral process to ensure that it is properly
administered ... and ... otherwise free, fair, and transparent.”
Wood submitted two affidavits from volunteer monitors. One
monitor stated that she was not allowed to enter the counting
area because there were too many monitors already present,
and she could not be sure from a distance whether the recount
was accurate. The other explained that the counting was
hard for her to follow and described what she thought were
possible tabulation errors.
*3 Wood moved for extraordinary relief. He asked that
the district court take one of three steps: prohibit Georgia
from certifying the results of the November election; prevent
it from certifying results that include “defective absentee
ballots, regardless of whether said ballots were cured”; or
declare the entire election defective and order the state to fix
the problems caused by the settlement agreement. He also
sought greater access for Republican election monitors, both
at a new hand recount of the November election and in a
runoff election scheduled for January 5, 2021.
Wood's lawsuit faced a quickly approaching obstacle: Georgia
law requires the Secretary of State to certify its general
election results by 5:00 p m. on the seventeenth day after
Election Day. Ga. Code Ann. § 21-2-499(b). And it requires
the Governor to certify Georgia's slate of presidential electors
by 5:00 p m. on the eighteenth day after Election Day. Id.
Secretary Raffensperger's deadline was November 20, and
Governor Brian Kemp had a deadline of November 21.
To avoid these deadlines, Wood moved to bar officials from
certifying the election results until a court could consider
his lawsuit. His emergency motion reiterated many of the
requests from his amended complaint, including requests for
changes to the procedures for the January runoff. He also

submitted additional affidavits and declarations in support of
his motion.
The district court held a hearing on November 19 to consider
whether it should issue a temporary restraining order. It heard
from Wood, state officials, and two groups of intervenors.
Wood also introduced testimony from Susan Voyles, a
poll manager who participated in the hand recount. Voyles
described her experience during the recount. She recalled that
one batch of absentee ballots felt different from the rest, and
that that batch favored Joe Biden to an unusual extent. At
the end of the hearing, the district court orally denied Wood's
motion.
On November 20, the district court issued a written opinion
and order that explained its denial. It first ruled that Wood
lacked standing because he had alleged only generalized
grievances, instead of injuries that affected him in a personal
and individual way. It next explained that, even if Wood
had standing, the doctrine of laches prevented him from
challenging the settlement agreement now: he could have
sued eight months earlier, yet he waited until two weeks after
the election. Finally, it explained why Wood would not be
entitled to a temporary restraining order even if the district
court could reach the merits of his claims. On the same day,
Secretary Raffensperger certified the results of the general
election and Governor Kemp certified a slate of presidential
electors.

II. STANDARD OF REVIEW
“We are required to examine our jurisdiction sua sponte,
and we review jurisdictional issues de novo.” United States
v. Lopez, 562 F.3d 1309, 1311 (11th Cir. 2009) (citation
omitted).

III. DISCUSSION
This appeal turns on one of the most fundamental principles
of the federal courts: our limited jurisdiction. Federal
courts are not “constituted as free-wheeling enforcers of
the Constitution and laws.” Initiative & Referendum Inst. v.
Walker, 450 F.3d 1082, 1087 (10th Cir. 2006) (en banc).
As the Supreme Court “ha[s] often explained,” we are
instead “courts of limited jurisdiction.” Home Depot U.S.A.,
Inc. v. Jackson, ––– U.S. ––––, 139 S. Ct. 1743, 1746,
204 L.Ed.2d 34 (2019) (internal quotation marks omitted).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1502

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 7 Document 58-7

3

Ex. 7

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

Article III of the Constitution establishes that our jurisdiction
—that is, our judicial power—reaches only “Cases” and
“Controversies.” U.S. Const. art. III, § 2. Absent a justiciable
case or controversy between interested parties, we lack the
“power to declare the law.” Steel Co. v. Citizens for a Better
Env't, 523 U.S. 83, 94, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998).
*4 When someone sues in federal court, he bears the burden
of proving that his suit falls within our jurisdiction. Kokkonen
v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377, 114
S.Ct. 1673, 128 L.Ed.2d 391 (1994). Wood had the choice
to sue in state or federal court. Georgia law makes clear that
post-election litigation may proceed in a state court. Ga. Code
Ann. §§ 21-2-499(b), 21-2-524(a). But Wood chose to sue in
federal court. In doing so, he had to prove that his suit presents
a justiciable controversy under Article III of the Constitution.
See Flast v. Cohen, 392 U.S. 83, 95, 88 S.Ct. 1942, 20 L.Ed.2d
947 (1968) (listing examples of problems that preclude our
jurisdiction). He failed to satisfy this burden.
We divide our discussion in two parts. We first explain why
Wood lacks standing to sue. We then explain that, even if he
had standing, his requests to recount and delay certification
of the November election results are moot. Because this case
is not justiciable, we lack jurisdiction. Id. And because we
lack the power to entertain this appeal, we will not address
the other issues the parties raise.

A. Wood Lacks Standing Because He Has Not Been Injured
in a Particularized Way.
Standing is a threshold jurisdictional inquiry: the elements of
standing are “an indispensable part of the plaintiff's case.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 561, 112 S.Ct.
2130, 119 L.Ed.2d 351 (1992). To prove standing, Wood
“must prove (1) an injury in fact that (2) is fairly traceable
to the challenged action of the defendant and (3) is likely to
be redressed by a favorable decision.” Jacobson v. Fla. Sec'y
of State, 974 F.3d 1236, 1245 (11th Cir. 2020). If he cannot
satisfy these requirements, then we may not decide the merits
of his appeal. Steel Co., 523 U.S. at 94, 118 S.Ct. 1003.
Wood lacks standing because he fails to allege the “first
and foremost of standing's three elements”: an injury in
fact. Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct.
1540, 1547, 194 L.Ed.2d 635 (2016) (alteration adopted)
(internal quotation marks omitted). An injury in fact is “an

invasion of a legally protected interest that is both concrete
and particularized and actual or imminent, not conjectural
or hypothetical.” Trichell v. Midland Credit Mgmt., Inc., 964
F.3d 990, 996 (11th Cir. 2020) (internal quotation marks
omitted). Wood's injury is not particularized.
Wood asserts only a generalized grievance. A particularized
injury is one that “affect[s] the plaintiff in a personal
and individual way.” Spokeo, 136 S. Ct. at 1548 (internal
quotation marks omitted). For example, if Wood were a
political candidate harmed by the recount, he would satisfy
this requirement because he could assert a personal, distinct
injury. Cf. Roe v. Alabama ex rel. Evans, 43 F.3d 574,
579 (11th Cir. 1995). But Wood bases his standing on his
interest in “ensur[ing that] ... only lawful ballots are counted.”
An injury to the right “to require that the government be
administered according to the law” is a generalized grievance.
Chiles v. Thornburgh, 865 F.2d 1197, 1205–06 (11th Cir.
1989) (alteration adopted) (internal quotation marks omitted).
And the Supreme Court has made clear that a generalized
grievance, “no matter how sincere,” cannot support standing.
Hollingsworth v. Perry, 570 U.S. 693, 706, 133 S.Ct. 2652,
186 L.Ed.2d 768 (2013).
A generalized grievance is “undifferentiated and common
to all members of the public.” Lujan, 504 U.S. at 575, 112
S.Ct. 2130 (internal quotation marks omitted). Wood cannot
explain how his interest in compliance with state election
laws is different from that of any other person. Indeed,
he admits that any Georgia voter could bring an identical
suit. But the logic of his argument sweeps past even that
boundary. All Americans, whether they voted in this election
or whether they reside in Georgia, could be said to share
Wood's interest in “ensur[ing] that [a presidential election] is
properly administered.”
*5 Wood argues that he has two bases for standing, but
neither satisfies the requirement of a distinct, personal injury.
He first asserts that the inclusion of unlawfully processed
absentee ballots diluted the weight of his vote. To be sure, vote
dilution can be a basis for standing. Cf. Jacobson, 974 F.3d at
1247–48. But it requires a point of comparison. For example,
in the racial gerrymandering and malapportionment contexts,
vote dilution occurs when voters are harmed compared to
“irrationally favored” voters from other districts. See Baker
v. Carr, 369 U.S. 186, 207–08, 82 S.Ct. 691, 7 L.Ed.2d
663 (1962). By contrast, “no single voter is specifically
disadvantaged” if a vote is counted improperly, even if the
error might have a “mathematical impact on the final tally

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1503

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 7 Document 58-7

4

Ex. 7

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

and thus on the proportional effect of every vote.” Bognet
v. Sec'y Commonwealth of Pa., ––– F.3d ––––, ––––, 2020
WL 6686120, at *12 (3d Cir. Nov. 13, 2020) (internal
quotation marks omitted). Vote dilution in this context is
a “paradigmatic generalized grievance that cannot support
standing.” Id. (internal quotation marks omitted).
Wood's second theory—that Georgia “value[d] one person's
vote over that of another” through “arbitrary and disparate
treatment”—fares no better. He argues that Georgia treats
absentee voters as a “preferred class” compared to those who
vote in person, both by the terms of the settlement agreement
and in practice. In his view, all voters were bound by law
before the settlement agreement, but the rules for absentee
voting now run afoul of the law, while in-person voters remain
bound by the law. And he asserts that in practice Georgia
has favored absentee voters because there were “numerous
irregularities” in the processing and recounting of absentee
ballots. Setting aside the fact that “[i]t is an individual voter's
choice whether to vote by mail or in person,” Bognet, –––
F.3d at ––––, 2020 WL 6686120, at *15, these complaints
are generalized grievances. Even if we assume that absentee
voters are favored over in-person voters, that harm does not
affect Wood as an individual—it is instead shared identically
by the four million or so Georgians who voted in person
this November. “[W]hen the asserted harm is ... shared in
substantially equal measure by ... a large class of citizens,” it
is not a particularized injury. Warth v. Seldin, 422 U.S. 490,
499, 95 S.Ct. 2197, 45 L.Ed.2d 343 (1975). And irregularities
in the tabulation of election results do not affect Wood
differently from any other person. His allegation, at bottom,
remains “that the law ... has not been followed.” Dillard v.
Chilton Cnty. Comm'n, 495 F.3d 1324, 1332 (11th Cir. 2007)
(quoting Lance v. Coffman, 549 U.S. 437, 442, 127 S.Ct. 1194,
167 L.Ed.2d 29 (2007)).
Wood's attempts to liken his injury to those we have found
sufficient in other appeals fall short. In Common Cause/
Georgia v. Billups, we ruled that “[r]equiring a registered
voter either to produce photo identification to vote in person
or to cast an absentee or provisional ballot is an injury
sufficient for standing.” 554 F.3d 1340, 1351–52 (11th Cir.
2009). But the injury there was the burden of producing
photo identification, not the existence of separate rules for inperson and absentee voters. Id. And the burden to produce
photo identification affected each voter in a personal way. For
example, some plaintiffs in Common Cause alleged that they
“would be required to make a special trip” to obtain valid
identification “that is not required of voters who have driver's

licenses or passports.” Id. at 1351 (internal quotation marks
omitted). By contrast, even Wood agrees that he is affected
by Georgia's alleged violations of the law in the same way as
every other Georgia voter. “This injury is precisely the kind
of undifferentiated, generalized grievance that the Supreme
Court has warned must not be countenanced.” Dillard, 495
F.3d at 1335 (internal quotation marks omitted).
Roe v. Alabama ex rel. Evans, 43 F.3d 574, also does not
support Wood's argument for standing. In Roe, we ruled that
the post-election inclusion of previously excluded absentee
ballots would violate the substantive-due-process rights of
Alabama voters and two political candidates. Id. at 579–81.
But no party raised and we did not address standing in Roe,
so that precedent provides no basis for Wood to establish
standing. Cf. Lewis v. Casey, 518 U.S. 343, 352 n.2, 116
S.Ct. 2174, 135 L.Ed.2d 606 (1996) (noting that in cases
where “standing was neither challenged nor discussed ...
the existence of unaddressed jurisdictional defects has no
precedential effect”). And Wood's purported injury is far
more general than the voters’ injury in Roe. The voters
in Roe bore individual burdens—to obtain notarization or
witness signatures if they wanted to vote absentee—that
state courts post-election retroactively permitted other voters
to ignore. Roe, 43 F.3d at 580–81. In contrast, Georgia
applied uniform rules, established before the election, to all
voters, who could choose between voting in person or by
absentee ballot, and Wood asserts that the effect of those rules
harmed the electorate collectively. That alleged harm is not a
particularized injury.
*6 Wood suggested in his amended complaint that his status
as a donor contributed to standing and aligned his interests
with those of the Georgia Republican Party. But he forfeited
this argument when he failed to raise it in his opening brief.
Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324, 1335
(11th Cir. 2004); see also Nat'l All. for the Mentally Ill v.
Bd. of Cnty. Comm'rs, 376 F.3d 1292, 1296 (11th Cir. 2004)
(ruling standing claims forfeited for failure to comply with
the Federal Rules of Appellate Procedure). And the donor
argument fails on its own terms. True, a donor can establish
standing based on injuries that flow from his status as a donor.
See, e.g., Wilding v. DNC Servs. Corp., 941 F.3d 1116, 1125
(11th Cir. 2019). But donors, like voters, “have no judicially
enforceable interest in the outcome of an election.” Jacobson,
974 F.3d at 1246. Nor does a donation give the donor a legally
cognizable interest in the proper administration of elections.
Any injury to Wood based on election irregularities must flow

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1504

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 7 Document 58-7

5

Ex. 7

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

from his status as a voter, unrelated to his donations. And that
fact returns him to the stumbling block of particularization.

certified the election results on November 20. And Governor
Kemp certified the slate of presidential electors later that day.

“[T]he ‘injury in fact’ test requires ... that the party seeking
review be himself among the injured.” Lujan, 504 U.S.
at 563, 112 S.Ct. 2130 (internal quotation marks omitted).
Wood's allegations suggest that various nonparties might have
a particularized injury. For example, perhaps a candidate
or political party would have standing to challenge the
settlement agreement or other alleged irregularities. Or
perhaps election monitors would have standing to sue if they
were denied access to the recount. But Wood cannot place
himself in the stead of these groups, even if he supports
them. Cf. Glanton ex rel. ALCOA Prescription Drug Plan
v. AdvancePCS Inc., 465 F.3d 1123, 1127 (9th Cir. 2006)
(explaining that “associational standing ... does not operate
in reverse,” so a member cannot represent an association).
He is at most a “concerned bystander.” Koziara v. City of
Casselberry, 392 F.3d 1302, 1305 (11th Cir. 2004) (internal
quotation marks omitted). So he is not “entitled to have the
court[s] decide the merits of [his] dispute.” Warth, 422 U.S.
at 498, 95 S.Ct. 2197.

Because Georgia has already certified its results, Wood's
requests to delay certification and commence a new recount
are moot. “We cannot turn back the clock and create a world
in which” the 2020 election results are not certified. Fleming
v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015). And it is not
possible for us to delay certification nor meaningful to order
a new recount when the results are already final and certified.
Cf. Tropicana Prods. Sales, Inc. v. Phillips Brokerage Co.,
874 F.2d 1581, 1582 (11th Cir. 1989) (“[A]n appeal from the
denial of a motion for preliminary injunction is mooted when
the requested effective end-date for the preliminary injunction
has passed.”). Nor can we reconstrue Wood's previous request
that we temporarily prohibit certification into a new request
that we undo the certification. A district court “must first have
the opportunity to pass upon [every] issue,” so we may not
consider requests for relief made for the first time on appeal.
S.F. Residence Club, Inc. v. 7027 Old Madison Pike, LLC, 583
F.3d 750, 755 (11th Cir. 2009).

B. Wood's Requested Relief Concerning the 2020 General
Election Is Moot.
Even if Wood had standing, several of his requests for relief
are barred by another jurisdictional defect: mootness. We are
“not empowered to decide moot questions.” North Carolina v.
Rice, 404 U.S. 244, 246, 92 S.Ct. 402, 30 L.Ed.2d 413 (1971)
(internal quotation marks omitted). “An issue is moot when
it no longer presents a live controversy with respect to which
the court can give meaningful relief.” Christian Coal. of Fla.,
Inc. v. United States, 662 F.3d 1182, 1189 (11th Cir. 2011)
(alteration rejected) (internal quotation marks omitted). And
an issue can become moot at any stage of litigation, even if
there was a live case or controversy when the lawsuit began.
Id. at 1189–90.
Wood asked for several kinds of relief in his emergency
motion, but most of his requests pertained to the 2020
election results. He moved the district court to prohibit either
the certification of the election results or certification that
included the disputed absentee ballots. He also asked the
district court to order a new hand recount and to grant
Republican election monitors greater access during both
the recount and the January runoff election. But after the
district court denied Wood's motion, Secretary Raffensperger

*7 Wood's arguments reflect a basic misunderstanding of
what mootness is. He argues that the certification does not
moot anything “because this litigation is ongoing” and he
remains injured. But mootness concerns the availability of
relief, not the existence of a lawsuit or an injury. Fla. Wildlife
Fed'n, Inc. v. S. Fla. Water Mgmt. Dist., 647 F.3d 1296, 1304
(11th Cir. 2011). So even if post-election litigation is not
always mooted by certification, see, e.g., Siegel v. LePore,
234 F.3d 1163, 1172–73 (11th Cir. 2000) (en banc), Wood's
particular requests are moot. Wood is right that certification
does not moot his requests for relief concerning the 2021
runoff—although Wood's lack of standing still forecloses our
consideration of those requests—but the pendency of other
claims for relief cannot rescue the otherwise moot claims. See,
e.g., Adler v. Duval Cnty. Sch. Bd., 112 F.3d 1475, 1478–79,
1481 (11th Cir. 1997) (instructing the district court to dismiss
moot claims but resolving other claims on the merits). Wood
finally tells us that President Trump has also requested a
recount, but that fact is irrelevant to whether Wood's requests
remain live.
Nor does any exception to mootness apply. True, we often
review otherwise-moot election appeals because they are
“capable of repetition yet evading review.” ACLU v. The Fla.
Bar, 999 F.2d 1486, 1496 (11th Cir. 1993) (internal quotation
marks omitted). We may apply this exception when “(1) the
challenged action was in its duration too short to be fully

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1505

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 7 Document 58-7

6

Ex. 7

Wood v. Raffensperger, --- F.3d ---- (2020)
2020 WL 7094866

litigated prior to its cessation or expiration, and (2) there
was a reasonable expectation that the same complaining party
would be subjected to the same action again.” Nat'l Broad. Co.
v. Commc'ns Workers of Am., 860 F.2d 1022, 1023 (11th Cir.
1988) (quoting Weinstein v. Bradford, 423 U.S. 147, 149, 96
S.Ct. 347, 46 L.Ed.2d 350 (1975)). But we will not apply this
exception if there is “some alternative vehicle through which
a particular policy may effectively be subject to” complete
review. Bourgeois v. Peters, 387 F.3d 1303, 1308 (11th Cir.
2004).
The “capable of repetition yet evading review” exception
does not save Wood's appeal because there is no “reasonable
expectation” that Wood will again face the issues in this
appeal. Based on the posture of this appeal, the challenged
action is the denial of an emergency injunction against the
certification of election results. See Fleming, 785 F.3d at
446 (explaining that whether the issues in an interlocutory
appeal are “capable of repetition, yet evading review” is
a separate question from whether the issues in the overall
End of Document

lawsuit are capable of doing so). That denial is the decision we
would review but for the jurisdictional problems. But Wood
cannot satisfy the requirement that there be a “reasonable
expectation” that he will again seek to delay certification.
Wood does not suggest that this situation might recur. Cf. FEC
v. Wis. Right To Life, Inc., 551 U.S. 449, 463–64, 127 S.Ct.
2652, 168 L.Ed.2d 329 (2007). And we have no reason to
think it would: he is a private citizen, so the possibility of a
recurrence is purely theoretical. Cf. Hall v. Sec'y, Ala., 902
F.3d 1294, 1305 (11th Cir. 2018).

IV. CONCLUSION
We AFFIRM the denial of Wood's motion for emergency
relief.
All Citations
--- F.3d ----, 2020 WL 7094866
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1506

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 7 Document 58-7

7

Ex. 7

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3295 Filed 12/07/20 Page 1 of 36

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD,
JAMES DAVID HOOPER, and
DAREN WADE RUBINGH,
Plaintiffs,
v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, and MICHIGAN
BOARD OF STATE CANVASSERS,

Civil Case No. 20-13134
Honorable Linda V. Parker

Defendants,
and
CITY OF DETROIT, DEMOCRATIC
NATIONAL COMMITTEE and
MICHIGAN DEMOCRATIC PARTY, and
ROBERT DAVIS,
Intervenor-Defendants.
___________________________________/
OPINION AND ORDER DENYING PLAINTIFFS’ “EMERGENCY
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF” (ECF NO. 7)
The right to vote is among the most sacred rights of our democracy and, in
turn, uniquely defines us as Americans. The struggle to achieve the right to vote is
1

1507 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3296 Filed 12/07/20 Page 2 of 36

one that has been both hard fought and cherished throughout our country’s history.
Local, state, and federal elections give voice to this right through the ballot. And
elections that count each vote celebrate and secure this cherished right.
These principles are the bedrock of American democracy and are widely
revered as being woven into the fabric of this country. In Michigan, more than 5.5
million citizens exercised the franchise either in person or by absentee ballot
during the 2020 General Election. Those votes were counted and, as of November
23, 2020, certified by the Michigan Board of State Canvassers (also “State
Board”). The Governor has sent the slate of Presidential Electors to the Archivist
of the United States to confirm the votes for the successful candidate.
Against this backdrop, Plaintiffs filed this lawsuit, bringing forth claims of
widespread voter irregularities and fraud in the processing and tabulation of votes
and absentee ballots. They seek relief that is stunning in its scope and breathtaking
in its reach. If granted, the relief would disenfranchise the votes of the more than
5.5 million Michigan citizens who, with dignity, hope, and a promise of a voice,
participated in the 2020 General Election. The Court declines to grant Plaintiffs
this relief.
I.

Background
In the weeks leading up to, and on, November 3, 2020, a record 5.5 million

Michiganders voted in the presidential election (“2020 General Election”). (ECF
2

1508 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3297 Filed 12/07/20 Page 3 of 36

No. 36-4 at Pg ID 2622.) Many of those votes were cast by absentee ballot. This
was due in part to the coronavirus pandemic and a ballot measure the Michigan
voters passed in 2018 allowing for no-reason absentee voting. When the polls
closed and the votes were counted, Former Vice President Joseph R. Biden, Jr. had
secured over 150,000 more votes than President Donald J. Trump in Michigan.
(Id.)
Michigan law required the Michigan State Board of Canvassers to canvass
results of the 2020 General Election by November 23, 2020. Mich. Comp. Laws
§ 168.842. The State Board did so by a 3-0 vote, certifying the results “for the
Electors of President and Vice President,” among other offices. (ECF No. 36-5 at
Pg ID 2624.) That same day, Governor Gretchen Whitmer signed the Certificates
of Ascertainment for the slate of electors for Vice President Biden and Senator
Kamala D. Harris. (ECF No. 36-6 at Pg ID 2627-29.) Those certificates were
transmitted to and received by the Archivist of the United States. (Id.)
Federal law provides that if election results are contested in any state, and if
the state, prior to election day, has enacted procedures to decide controversies or
contests over electors and electoral votes, and if these procedures have been
applied, and the decisions are made at least six days before the electors’ meetings,
then the decisions are considered conclusive and will apply in counting the
electoral votes. 3 U.S.C. § 5. This date (the “Safe Harbor” deadline) falls on
3

1509 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3298 Filed 12/07/20 Page 4 of 36

December 8, 2020. Under the federal statutory timetable for presidential elections,
the Electoral College must meet on “the first Monday after the second Wednesday
in December,” 3 U.S.C. § 7, which is December 14 this year.
Alleging widespread fraud in the distribution, collection, and counting of
ballots in Michigan, as well as violations of state law as to certain election
challengers and the manipulation of ballots through corrupt election machines and
software, Plaintiffs filed the current lawsuit against Defendants at 11:48 p.m. on
November 25, 2020—the eve of the Thanksgiving holiday. (ECF No. 1.)
Plaintiffs are registered Michigan voters and nominees of the Republican Party to
be Presidential Electors on behalf of the State of Michigan. (ECF No. 6 at Pg ID
882.) They are suing Governor Whitmer and Secretary of State Jocelyn Benson in
their official capacities, as well as the Michigan Board of State Canvassers.
On November 29, a Sunday, Plaintiffs filed a First Amended Complaint
(ECF No. 6), “Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief and Memorandum in Support Thereof” (ECF No. 7), and
Emergency Motion to Seal (ECF No. 8). In their First Amended Complaint,
Plaintiffs allege three claims pursuant to 42 U.S.C. § 1983: (Count I) violation of
the Elections and Electors Clauses; (Count II) violation of the Fourteenth
Amendment Equal Protection Clause; and, (Count III) denial of the Fourteenth

4

1510 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3299 Filed 12/07/20 Page 5 of 36

Amendment Due Process Clause. (ECF No. 6.) Plaintiffs also assert one count
alleging violations of the Michigan Election Code. (Id.)
By December 1, motions to intervene had been filed by the City of Detroit
(ECF No. 15), Robert Davis (ECF No. 12), and the Democratic National
Committee and Michigan Democratic Party (“DNC/MDP”) (ECF No. 14). On that
date, the Court entered a briefing schedule with respect to the motions. Plaintiffs
had not yet served Defendants with their pleading or emergency motions as of
December 1. Thus, on December 1, the Court also entered a text-only order to
hasten Plaintiffs’ actions to bring Defendants into the case and enable the Court to
address Plaintiffs’ pending motions. Later the same day, after Plaintiffs filed
certificates of service reflecting service of the summons and Amended Complaint
on Defendants (ECF Nos. 21), the Court entered a briefing schedule with respect to
Plaintiffs’ emergency motions, requiring response briefs by 8:00 p.m. on
December 2, and reply briefs by 8:00 p.m. on December 3 (ECF No. 24).
On December 2, the Court granted the motions to intervene. (ECF No. 28.)
Response and reply briefs with respect to Plaintiffs’ emergency motions were
thereafter filed. (ECF Nos. 29, 31, 32, 34, 35, 36, 37, 39, 49, 50.) Amicus curiae
Michigan State Conference NAACP subsequently moved and was granted leave to
file a brief in support of Defendants’ position. (ECF Nos. 48, 55.) Supplemental
briefs also were filed by the parties. (ECF Nos. 57, 58.)
5

1511 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3300 Filed 12/07/20 Page 6 of 36

In light of the limited time allotted for the Court to resolve Plaintiffs’
emergency motion for injunctive relief—which Plaintiffs assert “must be granted
in advance of December 8, 2020” (ECF No. 7 at Pg ID 1846)—the Court has
disposed of oral argument with respect to their motion pursuant to Eastern District
of Michigan Local Rule 7.1(f).1
II.

Standard of Review
A preliminary injunction is “an extraordinary remedy that may only be

awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008) (citation omitted). The plaintiff
bears the burden of demonstrating entitlement to preliminary injunctive relief.
Leary v. Daeschner, 228 F.3d 729, 739 (6th Cir. 2000). Such relief will only be
granted where “the movant carries his or her burden of proving that the
circumstances clearly demand it.” Overstreet v. Lexington-Fayette Urban Cnty.
Gov’t, 305 F.3d 566, 573 (6th Cir. 2002). “Evidence that goes beyond the
unverified allegations of the pleadings and motion papers must be presented to

“‘[W]here material facts are not in dispute, or where facts in dispute are not
material to the preliminary injunction sought, district courts generally need not
hold an evidentiary hearing.’” Nexus Gas Transmission, LLC v. City of Green,
Ohio, 757 Fed. Appx. 489, 496-97 (6th Cir. 2018) (quoting Certified Restoration
Dry Cleaning Network, LLC v. Tenke Corp., 511 F.3d 535, 553 (6th Cir. 2007))
(citation omitted).
1

6

1512 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3301 Filed 12/07/20 Page 7 of 36

support or oppose a motion for a preliminary injunction.” 11A Mary Kay Kane,
Fed. Prac. & Proc. § 2949 (3d ed.).
Four factors are relevant in deciding whether to grant preliminary injunctive
relief: “‘(1) whether the movant has a strong likelihood of success on the merits;
(2) whether the movant would suffer irreparable injury absent the injunction; (3)
whether the injunction would cause substantial harm to others; and (4) whether the
public interest would be served by the issuance of an injunction.’” Daunt v.
Benson, 956 F.3d 396, 406 (6th Cir. 2020) (quoting Bays v. City of Fairborn, 668
F.3d 814, 818-19 (6th Cir. 2012)). “At the preliminary injunction stage, ‘a plaintiff
must show more than a mere possibility of success,’ but need not ‘prove his case in
full.’” Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d 580, 591 (6th Cir. 2012)
(quoting Certified Restoration Dry Cleaning Network, LLC v. Tenke Corp., 511
F.3d 535, 543 (6th Cir. 2007)). Yet, “the proof required for the plaintiff to obtain a
preliminary injunction is much more stringent than the proof required to survive a
summary judgment motion ….” Leary, 228 F.3d at 739.
III.

Discussion
The Court begins by discussing those questions that go to matters of subject

matter jurisdiction or which counsel against reaching the merits of Plaintiffs’
claims. While the Court finds that any of these issues, alone, indicate that
Plaintiffs’ motion should be denied, it addresses each to be thorough.
7

1513 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3302 Filed 12/07/20 Page 8 of 36

A.

Eleventh Amendment Immunity

The Eleventh Amendment to the United States Constitution provides:
The judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
U.S. Const. amend. XI. This immunity extends to suits brought by citizens against
their own states. See, e.g., Ladd v. Marchbanks, 971 F.3d 574, 578 (6th Cir. 2020)
(citing Hans v. Louisiana, 134 U.S. 1, 18-19 (1890)). It also extends to suits
against state agencies or departments, Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 100 (1984) (citations omitted), and “suit[s] against state officials
when ‘the state is the real, substantial party in interest[,]’” id. at 101 (quoting Ford
Motor Co. v. Dep’t of Treasury, 323 U.S. 459, 464 (1945)).
A suit against a State, a state agency or its department, or a state official is in
fact a suit against the State and is barred “regardless of the nature of the relief
sought.” Pennhurst State Sch. & Hosp., 465 U.S. at 100-02 (citations omitted).
“‘The general rule is that a suit is against the sovereign if the judgment sought
would expend itself on the public treasury or domain, or interfere with the public
administration, or if the effect of the judgment would be to restrain the
Government from acting, or to compel it to act.’” Id. at 101 n.11 (quoting Dugan
v. Rank, 372 U.S. 609, 620 (1963)) (internal quotation marks omitted).
8

1514 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3303 Filed 12/07/20 Page 9 of 36

Eleventh Amendment immunity is subject to three exceptions: (1)
congressional abrogation; (2) waiver by the State; and (3) “a suit against a state
official seeking prospective injunctive relief to end a continuing violation of
federal law.” See Carten v. Kent State Univ., 282 F.3d 391, 398 (6th Cir. 2002)
(citations omitted). Congress did not abrogate the States’ sovereign immunity
when it enacted 42 U.S.C. § 1983. Will v. Mich. Dep’t of State Police, 491 U.S.
58, 66 (1989). “The State of Michigan has not consented to being sued in civil
rights actions in the federal courts.” Johnson v. Unknown Dellatifa, 357 F.3d 539,
545 (6th Cir. 2004) (citing Abick v. Michigan, 803 F.2d 874, 877 (6th Cir. 1986)).
The Eleventh Amendment therefore bars Plaintiffs’ claims against the Michigan
Board of State Canvassers. See McLeod v. Kelly, 7 N.W.2d 240, 242 (Mich. 1942)
(“The board of State canvassers is a State agency …”); see also Deleeuw v. State
Bd. of Canvassers, 688 N.W.2d 847, 850 (Mich. Ct. App. 2004). Plaintiffs’ claims
are barred against Governor Whitmer and Secretary Benson unless the third
exception applies.
The third exception arises from the Supreme Court’s decision in Ex parte
Young, 209 U.S. 123 (1908). But as the Supreme Court has advised:
To interpret Young to permit a federal-court action to
proceed in every case where prospective declaratory and
injunctive relief is sought against an officer, named in his
individual capacity, would be to adhere to an empty
formalism and to undermine the principle … that
Eleventh Amendment immunity represents a real
9

1515 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3304 Filed 12/07/20 Page 10 of 36

limitation on a federal court’s federal-question
jurisdiction. The real interests served by the Eleventh
Amendment are not to be sacrificed to elementary
mechanics of captions and pleading. Application of the
Young exception must reflect a proper understanding of
its role in our federal system and respect for state courts
instead of a reflexive reliance on an obvious fiction.
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261, 270 (1997). Further, “the
theory of Young has not been provided an expansive interpretation.” Pennhurst
State Sch. & Hosp., 465 U.S. at 102. “‘In determining whether the doctrine of Ex
parte Young avoids an Eleventh Amendment bar to suit, a court need only conduct
a straightforward inquiry into whether [the] complaint alleges an ongoing violation
of federal law and seeks relief properly characterized as prospective.’” Verizon
Md., Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 645 (2002) (quoting Coeur d’Alene
Tribe of Idaho, 521 U.S. 296 (O’Connor, J., concurring)).
Ex parte Young does not apply, however, to state law claims against state
officials, regardless of the relief sought. Pennhurst State Sch. & Hosp., 465 U.S. at
106 (“A federal court’s grant of relief against state officials on the basis of state
law, whether prospective or retroactive, does not vindicate the supreme authority
of federal law. On the contrary, it is difficult to think of a greater intrusion on state
sovereignty than when a federal court instructs state officials on how to conform
their conduct to state law.”); see also In re Ohio Execution Protocol Litig., 709 F.
App’x 779, 787 (6th Cir. 2017) (“If the plaintiff sues a state official under state law
10

1516 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3305 Filed 12/07/20 Page 11 of 36

in federal court for actions taken within the scope of his authority, sovereign
immunity bars the lawsuit regardless of whether the action seeks monetary or
injunctive relief.”). Unquestionably, Plaintiffs’ state law claims against
Defendants are barred by Eleventh Amendment immunity.
The Court then turns its attention to Plaintiffs’ § 1983 claims against
Defendants. Defendants and Intervenor DNC/MDP contend that these claims are
not in fact federal claims as they are premised entirely on alleged violations of
state law. (ECF No. 31 at Pg ID 2185 (“Here, each count of Plaintiffs’
complaint—even Counts I, II, and III, which claim to raise violations of federal
law—is predicated on the election being conducted contrary to Michigan law.”);
ECF No. 36 at Pg ID 2494 (“While some of [Plaintiffs’] allegations concern
fantastical conspiracy theories that belong more appropriately in the fact-free outer
reaches of the Internet[,] … what Plaintiffs assert at bottom are violations of the
Michigan Election Code.”) Defendants also argue that even if properly stated as
federal causes of action, “it is far from clear whether Plaintiffs’ requested
injunction is actually prospective in nature, as opposed to retroactive.” (ECF No.
31 at Pg ID 2186.)
The latter argument convinces this Court that Ex parte Young does not
apply. As set forth earlier, “‘[i]n order to fall with the Ex parte Young exception, a
claim must seek prospective relief to end a continuing violation of federal law.’”
11

1517 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3306 Filed 12/07/20 Page 12 of 36

Russell v. Lundergan-Grimes, 784 F.3d 1037, 1047 (6th Cir. 2015) (quoting Diaz
v. Mich. Dep’t of Corr., 703 F.3d 956, 964 (6th Cir. 2013)). Unlike Russell, which
Plaintiffs cite in their reply brief, this is not a case where a plaintiff is seeking to
enjoin the continuing enforcement of a statute that is allegedly unconstitutional.
See id. at 1044, 1047 (plaintiff claimed that Kentucky law creating a 300-foot nopolitical-speech buffer zone around polling location violated his free-speech
rights). Instead, Plaintiffs are seeking to undo what has already occurred, as their
requested relief reflects.2 (See ECF No. 7 at Pg ID 1847; see also ECF No. 6 at Pg
955-56.)
Before this lawsuit was filed, the Michigan Board of State Canvassers had
already certified the election results and Governor Whitmer had transmitted the
State’s slate of electors to the United States Archivist. (ECF Nos. 31-4, 31-5.)
There is no continuing violation to enjoin. See Rios v. Blackwell, 433 F. Supp. 2d
848 (N.D. Ohio Feb. 7, 2006); see also King Lincoln Bronzeville Neighborhood
Ass’n v. Husted, No. 2:06-cv-00745, 2012 WL 395030, at *4-5 (S.D. Ohio Feb. 7,
2012); cf. League of Women Voters of Ohio v. Brunner, 548 F.3d 463, 475 (6th Cir.
2008) (finding that the plaintiff’s claims fell within the Ex parte Young doctrine

To the extent Plaintiffs ask the Court to certify the results in favor of President
Donald J. Trump, such relief is beyond its powers.
12
2

1518 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3307 Filed 12/07/20 Page 13 of 36

where it alleged that the problems that plagued the election “are chronic and will
continue absent injunctive relief”).
For these reasons, the Court concludes that the Eleventh Amendment bars
Plaintiffs’ claims against Defendants.
B.

Mootness

This case represents well the phrase: “this ship has sailed.” The time has
passed to provide most of the relief Plaintiffs request in their Amended Complaint;
the remaining relief is beyond the power of any court. For those reasons, this
matter is moot.
“‘Under Article III of the Constitution, federal courts may adjudicate only
actual, ongoing cases or controversies.’” Kentucky v. U.S. ex rel. Hagel, 759 F.3d
588, 595 (6th Cir. 2014) (quoting Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477
(1990)). A case may become moot “when the issues presented are no longer live
or the parties lack a legally cognizable interest in the outcome.” U.S. Parole
Comm’n v. Geraghty, 445 U.S. 388, 396, 410 (1980) (internal quotation marks and
citation omitted). Stated differently, a case is moot where the court lacks “the
ability to give meaningful relief[.]” Sullivan v. Benningfield, 920 F.3d 401, 410
(6th Cir. 2019). This lawsuit was moot well before it was filed on November 25.
In their prayer for relief, Plaintiffs ask the Court to: (a) order Defendants to
decertify the results of the election; (b) enjoin Secretary Benson and Governor
13

1519 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3308 Filed 12/07/20 Page 14 of 36

Whitmer from transmitting the certified election results to the Electoral College;
(c) order Defendants “to transmit certified election results that state that President
Donald Trump is the winner of the election”; (d) impound all voting machines and
software in Michigan for expert inspection; (e) order that no votes received or
tabulated by machines not certified as required by federal and state law be counted;
and, (f) enter a declaratory judgment that mail-in and absentee ballot fraud must be
remedied with a manual recount or statistically valid sampling.3 (ECF No. 6 at Pg
ID 955-56, ¶ 233.) What relief the Court could grant Plaintiffs is no longer
available.
Before this lawsuit was filed, all 83 counties in Michigan had finished
canvassing their results for all elections and reported their results for state office
races to the Secretary of State and the Michigan Board of State Canvassers in
accordance with Michigan law. See Mich. Comp. Laws § 168.843. The State
Board had certified the results of the 2020 General Election and Governor
Whitmer had submitted the slate of Presidential Electors to the Archivists. (ECF

Plaintiffs also seek an order requiring the impoundment of all voting machines
and software in Michigan for expert inspection and the production of security
camera footage from the TCF Center for November 3 and 4. (ECF No. 6 at Pg ID
956, ¶ 233.) This requested relief is not meaningful, however, where the remaining
requests are no longer available. In other words, the evidence Plaintiffs seek to
gather by inspecting voting machines and software and security camera footage
only would be useful if an avenue remained open for them to challenge the election
results.
14
3

1520 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3309 Filed 12/07/20 Page 15 of 36

No. 31-4 at Pg ID 2257-58; ECF No. 31-5 at Pg ID 2260-63.) The time for
requesting a special election based on mechanical errors or malfunctions in voting
machines had expired. See Mich. Comp. Laws §§ 168.831, 168.832 (petitions for
special election based on a defect or mechanical malfunction must be filed “no
later than 10 days after the date of the election”). And so had the time for
requesting a recount for the office of President. See Mich. Comp. Laws § 168.879.
The Michigan Election Code sets forth detailed procedures for challenging
an election, including deadlines for doing so. Plaintiffs did not avail themselves of
the remedies established by the Michigan legislature. The deadline for them to do
so has passed. Any avenue for this Court to provide meaningful relief has been
foreclosed. As the Eleventh Circuit Court of Appeals recently observed in one of
the many other post-election lawsuits brought to specifically overturn the results of
the 2020 presidential election:
“We cannot turn back the clock and create a world in
which” the 2020 election results are not certified.
Fleming v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015).
And it is not possible for us to delay certification nor
meaningful to order a new recount when the results are
already final and certified.
Wood v. Raffensperger, -- F.3d -- , 2020 WL 7094866 (11th Cir. Dec. 5, 2020).
And as one Justice of the Supreme Court of Pennsylvania advised in another 2020
post-election lawsuit: “there is no basis in law by which the courts may grant
Petitioners’ request to ignore the results of an election and recommit the choice to
15

1521 Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3310 Filed 12/07/20 Page 16 of 36

the General Assembly to substitute its preferred slate of electors for the one chosen
by a majority of Pennsylvania’s voters.” Kelly v. Commonwealth, No. 68 MAP
2020, 2020 WL 7018314, at *3 (Pa. Nov. 28, 2020) (Wecht, J., concurring); see
also Wood v. Raffensperger, No. 1:20-cv-04651, 2020 WL 6817513, at *13 (N.D.
Ga. Nov. 20, 2020) (concluding that “interfer[ing] with the result of an election
that has already concluded would be unprecedented and harm the public in
countless ways”).
In short, Plaintiffs’ requested relief concerning the 2020 General Election is
moot.
C.

Laches

Defendants argue that Plaintiffs are unlikely to succeed on the merits
because they waited too long to knock on the Court’s door. (ECF No. 31 at Pg ID
2175-79; ECF No. 39 at Pg ID 2844.) The Court agrees.
The doctrine of laches is rooted in the principle that “equity aids the vigilant,
not those who slumber on their rights.” Lucking v. Schram, 117 F.2d 160, 162 (6th
Cir. 1941); see also United States v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 9
(2008) (“A constitutional claim can become time-barred just as any other claim
can.”). An action may be barred by the doctrine of laches if: (1) the plaintiff
delayed unreasonably in asserting his rights and (2) the defendant is prejudiced by
this delay. Brown-Graves Co. v. Central States, Se. and Sw. Areas Pension Fund,
16

1522 Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3311 Filed 12/07/20 Page 17 of 36

206 F.3d 680, 684 (6th Cir. 2000); Ottawa Tribe of Oklahoma v. Logan, 577 F.3d
634, 639 n.6 (6th Cir. 2009) (“Laches arises from an extended failure to exercise a
right to the detriment of another party.”). Courts apply laches in election cases.
Detroit Unity Fund v. Whitmer, 819 F. App’x 421, 422 (6th Cir. 2020) (holding
that the district court did not err in finding plaintiff’s claims regarding deadline for
local ballot initiatives “barred by laches, considering the unreasonable delay on the
part of [p]laintiffs and the consequent prejudice to [d]efendants”). Cf. Benisek v.
Lamone, 138 S. Ct. 1942, 1944 (2018) (“[A] party requesting a preliminary
injunction must generally show reasonable diligence. That is as true in election law
cases as elsewhere.”).
First, Plaintiffs showed no diligence in asserting the claims at bar. They
filed the instant action on November 25—more than 21 days after the 2020
General Election—and served it on Defendants some five days later on December
1. (ECF Nos. 1, 21.) If Plaintiffs had legitimate claims regarding whether the
treatment of election challengers complied with state law, they could have brought
their claims well in advance of or on Election Day—but they did not. Michigan’s
83 Boards of County Canvassers finished canvassing by no later than November
17 and, on November 23, both the Michigan Board of State Canvassers and
Governor Whitmer certified the election results. Mich. Comp. Laws §§ 168.822,
168.842.0. If Plaintiffs had legitimate claims regarding the manner by which
17

1523 Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3312 Filed 12/07/20 Page 18 of 36

ballots were processed and tabulated on or after Election Day, they could have
brought the instant action on Election Day or during the weeks of canvassing that
followed—yet they did not. Plaintiffs base the claims related to election machines
and software on “expert and fact witness” reports discussing “glitches” and other
alleged vulnerabilities that occurred as far back as 2010. (See e.g., ECF No. 6 at
Pg ID 927-933, ¶¶ 157(C)-(E), (G), 158, 160, 167.) If Plaintiffs had legitimate
concerns about the election machines and software, they could have filed this
lawsuit well before the 2020 General Election—yet they sat back and did nothing.
Plaintiffs proffer no persuasive explanation as to why they waited so long to
file this suit. Plaintiffs concede that they “would have preferred to file sooner, but
[] needed some time to gather statements from dozens of fact witnesses, retain and
engage expert witnesses, and gather other data supporting their Complaint.” (ECF
No. 49 at Pg ID 3081.) But according to Plaintiffs themselves, “[m]anipulation of
votes was apparent shortly after the polls closed on November 3, 2020.” (ECF No.
7 at Pg ID 1837 (emphasis added).) Indeed, where there is no reasonable
explanation, there can be no true justification. See Crookston v. Johnson, 841 F.3d
396, 398 (6th Cir. 2016) (identifying the “first and most essential” reason to issue a
stay of an election-related injunction is plaintiff offering “no reasonable
explanation for waiting so long to file this action”). Defendants satisfy the first
element of their laches defense.
18

1524 Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3313 Filed 12/07/20 Page 19 of 36

Second, Plaintiffs’ delay prejudices Defendants. See Kay v. Austin, 621 F.2d
809, 813 (6th Cir. 1980) (“As time passes, the state’s interest in proceeding with
the election increases in importance as resources are committed and irrevocable
decisions are made, and the candidate’s claim to be a serious candidate who has
received a serious injury becomes less credible by his having slept on his rights.”)
This is especially so considering that Plaintiffs’ claims for relief are not merely
last-minute—they are after the fact. While Plaintiffs delayed, the ballots were cast;
the votes were counted; and the results were certified. The rationale for
interposing the doctrine of laches is now at its peak. See McDonald v. Cnty. of San
Diego, 124 F. App’x 588 (9th Cir. 2005) (citing Soules v. Kauaians for Nukolii
Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988)); Soules, 849 F.2d at 1180
(quoting Hendon v. N.C. State Bd. Of Elections, 710 F.2d 177, 182 (4th Cir. 1983))
(applying doctrine of laches in post-election lawsuit because doing otherwise
would, “permit, if not encourage, parties who could raise a claim to lay by and
gamble upon receiving a favorable decision of the electorate and then, upon losing,
seek to undo the ballot results in a court action”).
Plaintiffs could have lodged their constitutional challenges much sooner than
they did, and certainly not three weeks after Election Day and one week after
certification of almost three million votes. The Court concludes that Plaintiffs’
delay results in their claims being barred by laches.
19

1525 Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3314 Filed 12/07/20 Page 20 of 36

D.

Abstention

As outlined in several filings, when the present lawsuit was filed on
November 25, 2020, there already were multiple lawsuits pending in Michigan
state courts raising the same or similar claims alleged in Plaintiffs’ Amended
Complaint. (See, e.g., ECF No. 31 at Pg ID 2193-98 (summarizing five state court
lawsuits challenging President Trump’s defeat in Michigan’s November 3, 2020
General Election).) Defendants and the City of Detroit urge the Court to abstain
from deciding Plaintiffs’ claims in deference to those proceedings under various
abstention doctrines. (Id. at Pg ID 2191-2203; ECF No. 39 at Pg ID 2840-44.)
Defendants rely on the abstention doctrine outlined by the Supreme Court in
Colorado River Water Conservation District v. United States, 424 U.S. 800 (1976).
The City of Detroit relies on the abstention doctrines outlined in Colorado River,
as well as those set forth in Railroad Commission of Texas v. Pullman Co., 312
U.S. 496, 500-01 (1941), and Burford v. Sun Oil Co., 319 U.S. 315 (1943). The
City of Detroit maintains that abstention is particularly appropriate when resolving
election disputes in light of the autonomy provided to state courts to initially settle
such disputes.
The abstention doctrine identified in Colorado River permits a federal court
to abstain from exercising jurisdiction over a matter in deference to parallel statecourt proceedings. Colorado River, 424 U.S. at 813, 817. The exception is found
20

1526 Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3315 Filed 12/07/20 Page 21 of 36

warranted “by considerations of ‘proper constitutional adjudication,’ ‘regard for
federal-state relations,’ or ‘wise judicial administration.’” Quackenbush v. Allstate
Ins. Co., 517 U.S. 706, 716 (1996) (quoting Colorado River, 424 U.S. at 817). The
Sixth Circuit has identified two prerequisites for abstention under this doctrine.
Romine v. Compuserve Corp., 160 F.3d 337, 339-40 (6th Cir. 1998).
First, the court must determine that the concurrent state and federal actions
are parallel. Id. at 339. Second, the court must consider the factors outlined by the
Supreme Court in Colorado River and subsequent cases:
(1) whether the state court has assumed jurisdiction over
any res or property; (2) whether the federal forum is less
convenient to the parties; (3) avoidance of piecemeal
litigation; … (4) the order in which jurisdiction was
obtained; … (5) whether the source of governing law is
state or federal; (6) the adequacy of the state court action
to protect the federal plaintiff’s rights; (7) the relative
progress of the state and federal proceedings; and (8) the
presence or absence of concurrent jurisdiction.
Romine, 160 F.3d at 340-41 (internal citations omitted). “These factors, however,
do not comprise a mechanical checklist. Rather, they require ‘a careful balancing
of the important factors as they apply in a give[n] case’ depending on the particular
facts at hand.” Id. (quoting Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 16 (1983)).
As summarized in Defendants’ response brief and reflected in their exhibits
(see ECF No. 31 at Pg ID 2193-97; see also ECF Nos. 31-7, 31-9, 31-11, 31-12,
21

1527 Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3316 Filed 12/07/20 Page 22 of 36

31-14), the allegations and claims in the state court proceedings and the pending
matter are, at the very least, substantially similar, Romine, 160 F.3d at 340 (“Exact
parallelism is not required; it is enough if the two proceedings are substantially
similar.” (internal quotation marks and citation omitted)). A careful balancing of
the factors set forth by the Supreme Court counsel in favor of deferring to the
concurrent jurisdiction of the state courts.
The first and second factor weigh against abstention. Id. (indicating that the
weight is against abstention where no property is at issue and neither forum is
more or less convenient). While the Supreme Court has stated that “‘the presence
of federal law issues must always be a major consideration weighing against
surrender of federal jurisdiction in deference to state proceedings[,]’” id. at 342
(quoting Moses H. Cone, 460 U.S. at 26), this “‘factor has less significance where
the federal courts’ jurisdiction to enforce the statutory rights in question is
concurrent with that of the state courts.’”4 Id. (quoting Moses H. Cone, 460 U.S. at
25). Moreover, the Michigan Election Code seems to dominate even Plaintiffs’
federal claims. Further, the remaining factors favor abstention.
“Piecemeal litigation occurs when different courts adjudicate the identical
issue, thereby duplicating judicial effort and potentially rendering conflicting

State courts have concurrent jurisdiction over § 1983 actions. Felder v. Casey,
487 U.S. 131, 139 (1988).
22

4

1528 Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3317 Filed 12/07/20 Page 23 of 36

results.” Id. at 341. The parallel proceedings are premised on similar factual
allegations and many of the same federal and state claims. The state court
proceedings were filed well before the present matter and at least three of those
matters are far more advanced than this case. Lastly, as Congress conferred
concurrent jurisdiction on state courts to adjudicate § 1983 claims, Felder v. Casey,
487 U.S. 131, 139 (1988), “[t]here can be no legitimate contention that the
[Michigan] state courts are incapable of safeguarding [the rights protected under
this statute],” Romine, 160 F.3d at 342.
For these reasons, abstention is appropriate under the Colorado River
doctrine. The Court finds it unnecessary to decide whether abstention is
appropriate under other doctrines.
E.

Standing

Under Article III of the United States Constitution, federal courts can
resolve only “cases” and “controversies.” U.S. Const. art. III § 2. The case-orcontroversy requirement is satisfied only where a plaintiff has standing to bring
suit. See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016), as revised (May 24,
2016). Each plaintiff must demonstrate standing for each claim he seeks to press.5
Plaintiffs assert a due process claim in their Amended Complaint and twice state
in their motion for injunctive relief that Defendants violated their due process
rights. (See ECF No. 7 at Pg ID 1840, 1844.) Plaintiffs do not pair either
statement with anything the Court could construe as a developed argument. (Id.)
The Court finds it unnecessary, therefore, to further discuss the due process claim.
23
5

1529 Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3318 Filed 12/07/20 Page 24 of 36

DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006) (citation omitted) (“[A]
plaintiff must demonstrate standing separately for each form of relief sought.”).
To establish standing, a plaintiff must show that: (1) he has suffered an injury in
fact that is “concrete and particularized” and “actual or imminent”; (2) the injury is
“fairly . . . trace[able] to the challenged action of the defendant”; and (3) it is
“likely, as opposed to merely speculative, that the injury will be redressed by a
favorable decision.” Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-62 (1992)
(internal quotation marks and citations omitted).
1.

Equal Protection Claim

Plaintiffs allege that Defendants engaged in “several schemes” to, among
other things, “destroy,” “discard,” and “switch” votes for President Trump, thereby
“devalu[ing] Republican votes” and “diluting” the influence of their individual
votes. (ECF No. 49 at Pg ID 3079.) Plaintiffs contend that “the vote dilution
resulting from this systemic and illegal conduct did not affect all Michigan voters
equally; it had the intent and effect of inflating the number of votes for Democratic
candidates and reducing the number of votes for President Trump and Republican
candidates.” (ECF No. 49 at Pg ID 3079.) Even assuming that Plaintiffs establish

McPherson v. Kelsey, 125 F.3d 989, 995 (6th Cir. 1997) (“Issues adverted to in a
perfunctory manner, unaccompanied by some effort at developed argumentation,
are deemed waived.”).
24

1530 Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3319 Filed 12/07/20 Page 25 of 36

injury-in-fact and causation under this theory,6 their constitutional claim cannot
stand because Plaintiffs fall flat when attempting to clear the hurdle of
redressability.
Plaintiffs fail to establish that the alleged injury of vote-dilution can be
redressed by a favorable decision from this Court. Plaintiffs ask this Court to decertify the results of the 2020 General Election in Michigan. But an order decertifying the votes of approximately 2.8 million people would not reverse the
dilution of Plaintiffs’ vote. To be sure, standing is not “dispensed in gross: A
plaintiff’s remedy must be tailored to redress the plaintiff’s particular injury.” Gill,
138 S. Ct. at 1934 (citing Cuno, 547 U.S. at 353); Cuno, 547 U.S. at 353 (“The
remedy must of course be limited to the inadequacy that produced the injury in fact
that the plaintiff has established.” (quoting Lewis v. Casey, 518 U.S. 343, 357
(1996)). Plaintiffs’ alleged injury does not entitle them to seek their requested
remedy because the harm of having one’s vote invalidated or diluted is not
remedied by denying millions of others their right to vote. Accordingly, Plaintiffs
have failed to show that their injury can be redressed by the relief they seek and
thus possess no standing to pursue their equal protection claim.

To be clear, the Court does not find that Plaintiffs satisfy the first two elements of
the standing inquiry.
25
6

1531 Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3320 Filed 12/07/20 Page 26 of 36

2.

Elections Clause & Electors Clause Claims

The provision of the United States Constitution known as the Elections
Clause states in part: “The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in each State by the Legislature
thereof[.]” U.S. Const. art. I, § 4, cl. 1. “The Elections Clause effectively gives
state governments the ‘default’ authority to regulate the mechanics of federal
elections, Foster v. Love, 522 U.S. 67, 69, 118 S. Ct. 464, 139 L.Ed.2d 369 (1997),
with Congress retaining ‘exclusive control’ to ‘make or alter’ any state’s
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S. Ct. 1198, 90 L.Ed. 1432
(1946).” Bognet, 2020 WL 6686120, *1. The “Electors Clause” of the
Constitution states: “Each State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors ….” U.S. Const. art. II, § 1, cl. 2.
Plaintiffs argue that, as “nominees of the Republican Party to be Presidential
Electors on behalf of the State of Michigan, they have standing to allege violations
of the Elections Clause and Electors Clause because “a vote for President Trump
and Vice-President Pence in Michigan … is a vote for each Republican elector[],
and … illegal conduct aimed at harming candidates for President similarly injures
Presidential Electors.” (ECF No. 7 at Pg ID 1837-38; ECF No. 49 at Pg ID 307678.)

26

1532 Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3321 Filed 12/07/20 Page 27 of 36

But where, as here, the only injury Plaintiffs have alleged is that the
Elections Clause has not been followed, the United States Supreme Court has made
clear that “[the] injury is precisely the kind of undifferentiated, generalized
grievance about the conduct of government that [courts] have refused to
countenance.”7 Lance v. Coffman, 549 U.S. 437, 442 (2007). Because Plaintiffs
“assert no particularized stake in the litigation,” Plaintiffs fail to establish injuryin-fact and thus standing to bring their Elections Clause and Electors Clause
claims. Id.; see also Johnson v. Bredesen, 356 F. App’x 781, 784 (6th Cir. 2009)
(citing Lance, 549 U.S. at 441-42) (affirming district court’s conclusion that
citizens did not allege injury-in-fact to support standing for claim that the state of
Tennessee violated constitutional law).

Although separate constitutional provisions, the Electors Clause and Elections
Clause share “considerable similarity,” Ariz. State Leg. v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 839, (2015) (Roberts, C.J., dissenting), and Plaintiffs do
not at all distinguish the two clauses in their motion for injunctive relief or reply
brief (ECF No. 7; ECF No. 49 at Pg ID 3076-78). See also Bognet v. Sec’y
Commonwealth of Pa., No. 20-3214, 2020 WL 6686120, at *7 (3d Cir. Nov. 13,
2020) (applying same test for standing under both Elections Clause and Electors
Clause); Wood, 2020 WL 6817513, at *1 (same); Foster, 522 U.S. at 69
(characterizing Electors Clause as Elections Clauses’ “counterpart for the
Executive Branch”); U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 804-05
(1995) (noting that state’s “duty” under Elections Clause “parallels the duty”
described by Electors Clause).
7

27

1533 Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3322 Filed 12/07/20 Page 28 of 36

This is so because the Elections Clause grants rights to “the Legislature” of
“each State.” U.S. Const. art. I, § 4, cl. 1. The Supreme Court interprets the words
“the Legislature,” as used in that clause, to mean the lawmaking bodies of a state.
Ariz. State Legislature, 135 S.Ct. at 2673. The Elections Clause, therefore, grants
rights to state legislatures and to other entities to which a State may delegate
lawmaking authority. See id. at 2668. Plaintiffs’ Elections Clause claims thus
belong, if to anyone, Michigan’s state legislature. Bognet v. Secy. Commonwealth
of Pa., -- F.3d. --, 2020 WL 6686120, *7 (3d Cir. Nov. 13, 2020). Plaintiffs here
are six presidential elector nominees; they are not a part of Michigan’s lawmaking
bodies nor do they have a relationship to them.
To support their contention that they have standing, Plaintiffs point to
Carson v. Simon, 78 F.3d 1051 (8th Cir. 2020), a decision finding that electors had
standing to bring challenges under the Electors Clause. (ECF No. 7 at Pg ID 1839
(citing Carson, 978 F.3d at 1057).) In that case, which was based on the specific
content and contours of Minnesota state law, the Eighth Circuit Court of Appeals
concluded that because “the plain text of Minnesota law treats prospective electors
as candidates,” it too would treat presidential elector nominees as candidates.
Carson, 78 F.3d at 1057. This Court, however, is as unconvinced about the
majority’s holding in Carson as the dissent:
I am not convinced the Electors have Article III standing
to assert claims under the Electors Clause. Although
28

1534 Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3323 Filed 12/07/20 Page 29 of 36

Minnesota law at times refers to them as “candidates,”
see, e.g., Minn. Stat. § 204B.03 (2020), the Electors are
not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office
of elector depends entirely on the outcome of the state
popular vote for president. Id. § 208.04 subdiv. 1 (“[A]
vote cast for the party candidates for president and vice
president shall be deemed a vote for that party’s
electors.”). They are not presented to and chosen by the
voting public for their office, but instead automatically
assume that office based on the public’s selection of
entirely different individuals.
78 F.3d at 1063 (Kelly, J., dissenting).8
Plaintiffs contend that the Michigan Election Code and relevant Minnesota
law are similar. (See ECF No. 49 at Pg ID 3076-78.) Even if the Court were to

In addition, at least one Circuit Court, the Third Circuit Court of Appeals, has
distinguished Carson’s holding, noting:

8

Our conclusion departs from the recent decision of an
Eighth Circuit panel which, over a dissent, concluded
that candidates for the position of presidential elector had
standing under Bond to challenge a Minnesota state-court
consent decree that effectively extended the receipt
deadline for mailed ballots. . . . The Carson court appears
to have cited language from Bond without considering
the context—specifically, the Tenth Amendment and the
reserved police powers—in which the U.S. Supreme
Court employed that language. There is no precedent for
expanding Bond beyond this context, and the Carson
court cited none.
Bognet, 2020 WL 6686120, at *8 n.6.
29

1535 Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3324 Filed 12/07/20 Page 30 of 36

agree, it finds that Plaintiffs lack standing to sue under the Elections and Electors
Clauses.
F.

The Merits of the Request for Injunctive Relief
1.

Likelihood of Success on the Merits

The Court may deny Plaintiffs’ motion for injunctive relief for the reasons
discussed above. Nevertheless, the Court will proceed to analyze the merits of
their claims.
a.

Violation of the Elections & Electors Clauses

Plaintiffs allege that Defendants violated the Elections Clause and Electors
Clause by deviating from the requirements of the Michigan Election Code. (See,
e.g., ECF No. 6 at Pg ID 884-85, ¶¶ 36-40, 177-81, 937-38.) Even assuming
Defendants did not follow the Michigan Election Code, Plaintiffs do not explain
how or why such violations of state election procedures automatically amount to
violations of the clauses. In other words, it appears that Plaintiffs’ claims are in
fact state law claims disguised as federal claims.
A review of Supreme Court cases interpreting these clauses supports this
conclusion. In Cook v. Gralike, the Supreme Court struck down a Missouri law
that required election officials to print warnings on the ballot next to the name of
any congressional candidate who refused to support term limits after concluding
that such a statute constituted a “‘regulation’ of congressional elections,” as used in
30

1536 Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3325 Filed 12/07/20 Page 31 of 36

the Elections Clause. 531 U.S. 510, 525-26 (2001) (quoting U.S. Const. art. I, § 4,
cl. 1). In Arizona State Legislature v. Arizona Independent Redistricting
Commission, the Supreme Court upheld an Arizona law that transferred
redistricting power from the state legislature to an independent commission after
concluding that “the Legislature,” as used in the Elections Clause, includes any
official body with authority to make laws for the state. 576 U.S. 787, 824 (2015).
In each of these cases, federal courts measured enacted state election laws against
the federal mandates established in the clauses—they did not measure violations of
enacted state elections law against those federal mandates.
By asking the Court to find that they have made out claims under the clauses
due to alleged violations of the Michigan Election Code, Plaintiffs ask the Court to
find that any alleged deviation from state election law amounts to a modification of
state election law and opens the door to federal review. Plaintiffs cite to no case—
and this Court found none—supporting such an expansive approach.
b.

Violation of the Equal Protection Clause

Most election laws will “impose some burden upon individual voters.”
Burdick v. Takushi, 504 U.S. 428, 433 (1992). But “[o]ur Constitution leaves no
room for classification of people in a way that unnecessarily abridges this right [to
vote].” Reynolds v. Sims, 377 U.S. 533, 559 (1964) (quoting Wesberry v. Sanders,
376 U.S. 1, 17-18 (1964)). Voting rights can be impermissibly burdened “by a
31

1537 Case 2:20-cv-01771-PP Filed 12/07/20 Page 31 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3326 Filed 12/07/20 Page 32 of 36

debasement or dilution of the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.” Id. (quoting Reynolds, 377
U.S. at 555).
Plaintiffs attempt to establish an Equal Protection claim based on the theory
that Defendants engaged in “several schemes” to, among other things, “destroy,”
“discard,” and “switch” votes for President Trump, thereby “devalu[ing]
Republican votes” and “diluting” the influence of their individual votes. (ECF No.
49 at Pg ID 3079.)
But, to be perfectly clear, Plaintiffs’ equal protection claim is not supported
by any allegation that Defendants’ alleged schemes caused votes for President
Trump to be changed to votes for Vice President Biden. For example, the closest
Plaintiffs get to alleging that physical ballots were altered in such a way is the
following statement in an election challenger’s sworn affidavit: “I believe some of
these workers were changing votes that had been cast for Donald Trump and other
Republican candidates.”9 (ECF No. 6 at Pg ID 902 ¶ 91 (citing Aff. Articia
Plaintiffs allege in several portions of the Amended Complaint that election
officials improperly tallied, counted, or marked ballots. But some of these
allegations equivocate with words such as “believe” and “may” and none of these
allegations identify which presidential candidate the ballots were allegedly altered
to favor. (See, e.g., ECF No. 6 at Pg ID 902, ¶ 91 (citing Aff. Articia Bomer, ECF
No. 6-3 at Pg ID 1008-10 (“I believe some of these ballots may not have been
properly counted.” (emphasis added))); Pg ID 902-03, ¶ 92 (citing Tyson Aff. ¶ 17)
(“At least one challenger observed poll workers adding marks to a ballot where
there was no mark for any candidate.”).
32

9

1538 Case 2:20-cv-01771-PP Filed 12/07/20 Page 32 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3327 Filed 12/07/20 Page 33 of 36

Bomer, ECF No. 6-3 at Pg ID 1008-1010).) But of course, “[a] belief is not
evidence” and falls far short of what is required to obtain any relief, much less the
extraordinary relief Plaintiffs request. United States v. O’Connor, No. 96-2992,
1997 WL 413594, at *1 (7th Cir. 1997); see Brown v. City of Franklin, 430 F.
App’x 382, 387 (6th Cir. 2011) (“Brown just submits his belief that Fox’s
‘protection’ statement actually meant “protection from retaliation. . . . An
unsubstantiated belief is not evidence of pretext.”); Booker v. City of St. Louis, 309
F.3d 464, 467 (8th Cir. 2002) (“Booker’s “belief” that he was singled out for
testing is not evidence that he was.”).10 The closest Plaintiffs get to alleging that
election machines and software changed votes for President Trump to Vice
10

As stated by the Circuit Court for the District of Columbia Circuit:
The statement is that the complainant believes and
expects to prove some things. Now his belief and
expectation may be in good faith; but it has been
repeatedly held that suspicion is not proof; and it is
equally true that belief and expectation to prove cannot
be accepted as a substitute for fact. The complainant
carefully refrains from stating that he has any
information upon which to found his belief or to justify
his expectation; and evidently he has no such
information. But belief, without an allegation of fact
either upon personal knowledge or upon information
reasonably sufficient upon which to base the belief,
cannot justify the extraordinary remedy of injunction.

Magruder v. Schley, 18 App. D.C. 288, 292, 1901 WL 19131, at *2 (D.C. Cir.
1901).
33

1539 Case 2:20-cv-01771-PP Filed 12/07/20 Page 33 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3328 Filed 12/07/20 Page 34 of 36

President Biden in Wayne County is an amalgamation of theories, conjecture, and
speculation that such alterations were possible. (See e.g., ECF No. 6 at ¶¶ 7-11,
17, 125, 129, 138-43, 147-48, 155-58, 160-63, 167, 171.) And Plaintiffs do not at
all explain how the question of whether the treatment of election challengers
complied with state law bears on the validity of votes, or otherwise establishes an
equal protection claim.
With nothing but speculation and conjecture that votes for President Trump
were destroyed, discarded or switched to votes for Vice President Biden, Plaintiffs’
equal protection claim fails.11 See Wood, 2020 WL 7094866 (quoting Bognet,
2020 WL 6686120, at *12) (“‘[N]o single voter is specifically disadvantaged’ if a
vote is counted improperly, even if the error might have a ‘mathematical impact on
the final tally and thus on the proportional effect of every vote.’”).

“[T]he Voter Plaintiffs cannot analogize their Equal Protection claim to
gerrymandering cases in which votes were weighted differently. Instead, Plaintiffs
advance an Equal Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal treatment. And if
dilution of lawfully cast ballots by the ‘unlawful’ counting of invalidly cast ballots
were a true equal-protection problem, then it would transform every violation of
state election law (and, actually, every violation of every law) into a potential
federal equal-protection claim requiring scrutiny of the government’s ‘interest’ in
failing to do more to stop the illegal activity. That is not how the Equal Protection
Clause works.” Bognet, 2020 WL 6686120, at *11.
34
11

1540 Case 2:20-cv-01771-PP Filed 12/07/20 Page 34 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3329 Filed 12/07/20 Page 35 of 36

2.

Irreparable Harm & Harm to Others

Because “a finding that there is simply no likelihood of success on the merits
is usually fatal[,]” Gonzales v. Nat’l Bd. of Med. Examiners, 225 F.3d 620, 625
(6th Cir. 2000) (citing Mich. State AFL-CIO v. Miller, 103 F.3d 1240, 1249 (6th
Cir. 1997), the Court will not discuss the remaining preliminary injunction factors
extensively.
As discussed, Plaintiffs fail to show that a favorable decision from the Court
would redress their alleged injury. Moreover, granting Plaintiffs’ injunctive relief
would greatly harm the public interest. As Defendants aptly describe, Plaintiffs’
requested injunction would “upend the statutory process for election certification
and the selection of Presidential Electors. Moreover, it w[ould] disenfranchise
millions of Michigan voters in favor [of] the preferences of a handful of people
who [are] disappointed with the official results.” (ECF No. 31 at Pg ID 2227.)
In short, none of the remaining factors weigh in favor of granting Plaintiffs’
request for an injunction.
IV.

Conclusion
For these reasons, the Court finds that Plaintiffs are far from likely to

succeed in this matter. In fact, this lawsuit seems to be less about achieving the
relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic
35

1541 Case 2:20-cv-01771-PP Filed 12/07/20 Page 35 of 36 Document 58-8

Ex. 8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3330 Filed 12/07/20 Page 36 of 36

process and their trust in our government. Plaintiffs ask this Court to ignore the
orderly statutory scheme established to challenge elections and to ignore the will of
millions of voters. This, the Court cannot, and will not, do.
The People have spoken.
The Court, therefore, DENIES Plaintiffs’ “Emergency Motion for
Declaratory, Emergency, and Permanent Injunctive Relief” (ECF No. 7.)
IT IS SO ORDERED.
s/ Linda V. Parker
LINDA V. PARKER
U.S. DISTRICT JUDGE
Dated: December 7, 2020

36

1542 Case 2:20-cv-01771-PP Filed 12/07/20 Page 36 of 36 Document 58-8

Ex. 8

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
v.

Plaintiff,

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.

BRIEF OF GOVERNOR TONY EVERS IN SUPPORT OF HIS MOTION
TO DISMISS PLAINTIFF’S AMENDED COMPLAINT

Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Post Office Box 1784
Madison, WI 53701-1784
Telephone: 608-256-0226
jmandell@staffordlaw.com
rsnyder@staffordlaw.com
rmanthe@staffordlaw.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org

1543

Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers
December 7, 2020

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 30 Document 59

INTRODUCTION
This Court is the latest theater in a six-state campaign of meritless, scorched earth litigation
relentlessly—albeit uniformly unsuccessfully—waged by the Trump campaign and its allies after
the November 3 election. In each state, as here, plaintiffs “seek relief that is stunning in its scope
and breathtaking in its reach.” King v. Whitmer, No. 20-13134, Op. & Order, at *2 (E.D. Mich.
Dec. 7, 2020).1 Wisconsin’s Supreme Court called a similar request “the most dramatic invocation
of judicial power [they] have ever seen.” Wis. Voters Alliance v. Wis. Elections Comm’n, No.
2020AP1930-OA (Wis. Dec. 4, 2020) (Hagedorn, J., concurring on behalf of majority). This multistate campaign is failing on every front. It should meet the same fate here.
Plaintiff’s unprecedented requests for relief are based on nothing but a mishmash of
speculation, conjecture, and conspiracy theories, all without a shred of evidence that could
plausibly support their requested relief—and, despite waiting until a month after the election was
completed, he asks the Court to grant this drastic relief immediately and thereby imperil
Wisconsin’s participation in the Electoral College next week. Plaintiff’s case falls flat on step one
(standing), and it trips again on each of the additional steps he would need to climb to establish a
justiciable controversy that is not moot and that could properly be adjudicated in this Court, avoid
a laches bar based on his failure to bring his claims earlier, and set forth a claim that could plausibly
support his requested relief under Twombly and Iqbal.
Earlier today, a court in Michigan held, without a hearing or evidentiary presentation, that
an analogous case raising nearly identical arguments with many of the same supporting exhibits

1

Pursuant to Civil L.R. 7(j)(2), all unpublished cases, orders, and dispositions cited are filed in
conjunction with this brief.

1544

1
Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 30 Document 59

must be dismissed and the plea for injunctive relief denied. It did so for the same reasons identified
in Governor Evers’s Motion to Dismiss and his companion opposition to injunctive relief:
The plaintiffs lacked standing. Specifically relevant here, the court rejected the theory of
vote dilution as a violation of the Equal Protection Clause and the allegation that presidential
electors have standing under the Election and Electors Clauses. King, Op. & Order, at *23-*30.
The court deemed the case non-justiciable, for several reasons. The court held abstention
was appropriate under the Colorado River doctrine. That conclusion made it “unnecessary to
decide whether abstention is appropriate under other doctrines.” Id. at *23. Burford abstention is
argued below. The court also found the matter moot because “[t]he time has passed to provide
most of the relief” and “the remaining relief is beyond the power of any court.” Id. This accords
with the Eleventh Circuit’s decision affirming dismissal of the Georgia litigation, which noted that
courts “cannot turn back the clock and create a world in which’ the 2020 election results are not
certified.” Wood v. Raffensberger, No. 20-14418, 2020 WL 7094866, at *6 (11th Cir. Dec. 5,
2020). The Governor’s Motion additionally argues that Plaintiff’s case fails both because there is
an exclusive state judicial procedure and he failed to exhaust his administrative remedies.
The Michigan court deemed the Eleventh Amendment preclusive. To escape that
constitutional bar, the court explained, a plaintiff must “allege[] an ongoing violation of federal
law and seek[] relief properly characterizes as prospective.” King, Op. & Order, at *11 (quoting
Verizon Md., Inc. v. Pub. Serv. Comm’n, 525 U.S. 635, 645 (2002)). But in Michigan, as here, the
election results have been certified, leaving “no continuing violation to enjoin.” Id. at *13.
The Michigan court applied laches because plaintiffs “waited too long to knock on the
Court’s door.” Id. at *16. The Georgia similarly held that, “rather than challenging election rules
on the eve of an election, [Wood] wants the rules for the already concluded election declared

1545

2
Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 30 Document 59

unconstitutional and over one million absentee ballots called into question, [which] would
disenfranchise a substantial portion of the electorate and erode public confidence in the electoral
process.” Wood v. Raffensberger, No. 1:2020-cv-04651-SDG, 2020 WL 6817513, at *8 (N.D. Ga.
Nov. 20, 2020), aff’d, 2020 WL 7094866, at *6 (11th Cir. Dec. 5, 2020).
All of this before the court even reached the merits, which it found decidedly lacking. Here,
the merits are so lacking that they fail to meet federal pleading standards, as argued below.
Given that Plaintiff Feehan seeks not preliminary relief to preserve the status quo but a
radical remedy to reverse the results of Wisconsin’s presidential election and disenfranchise
millions of voters, the Court should resolve this motion to dismiss before considering any request
for relief. See Fed. R. Civ. P. 12(i); accord, e.g., Packaging Corp. of Am., Inc. v. Croner, 419 F.
Supp. 3d 1059, 1062 (N.D. Ill. 2020) (court addressed motion to dismiss first, and then addressed
preliminary injunction on remaining count not dismissed); Whitaker v. Kenosha Unified Sch. Dist.
No. 1 Bd. of Educ., No. 16-CV-943-PP, 2016 WL 8846573, at *1 (E.D. Wis. Oct. 3, 2016) (court
addressed motion to dismiss before previously filed motion for preliminary injunction).
LEGAL STANDARD
A motion to dismiss under Rule 12(b)(1) tests the sufficiency of the complaint, not the
merits of the case. Center for Dermatology and Skin Cancer, Ltd. v. Burwell, 770 F.3d 586, 588
(7th Cir. 2014). A plaintiff facing a 12(b)(1) motion to dismiss must establish that the jurisdictional
requirements have been met. Id. at 588-89. A complaint must be dismissed under Rule 12(b)(1) if
the plaintiff lacks standing or the case is nonjusticiable.
To establish standing, Plaintiff must show that: (1) he has “suffered an actual or imminent,
concrete and particularized injury-in-fact;” (2) there is a “causal connection between [his] injury
and the conduct complained of;” and (3) there is a “likelihood that this injury will be redressed by
a favorable decision.” Democratic Party of Wis. v. Vos, 966 F.3d 581, 585 (7th Cir. 2020) (quoting

1546

3
Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 30 Document 59

Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992)). “A plaintiff may not rely on only a
‘generalized grievance about the conduct of government.’” Id. (quoting Gill v. Whitford, 138 S.
Ct. 1916, 1931 (U.S. 2018)). If a plaintiff lacks standing to assert a claim, the court lacks subjectmatter jurisdiction over the claim, and the claim must be dismissed. Fed. R. Civ. P. 12(h)(3); see
also Taylor v. McCament, 875 F.3d 849, 853 (7th Cir. 2017). In addition to constitutional standing,
the Court must also conclude that Plaintiff has prudential standing, which generally prohibits a
litigant from “raising another person’s legal rights,” bars “adjudication of general grievances more
appropriately addressed in the representative branches,” and requires that claims “fall within the
zone of interests protected by the law invoked.” Winkler v. Gates, 481 F.3d 977, 979 (7th Cir.
2007) (quoting Elk Grove Unified Sch. Dist. v. Newdow, 542 U.S. 1, 11-12 (2004)).
A court may also deem a complaint nonjusticiable for several reasons, including that it is:
(1) subject to exclusive remedies in a different forum, and, therefore, an appropriate subject for
abstention; (2) not yet ripe because the plaintiff has failed to exhaust administrative remedies; or
(3) moot because the requested relief is no longer available in light of events that have already
transpired. A federal court may appropriately decline to exercise jurisdiction over a matter
(abstain) “when (1) there is a substantial uncertainty as to the meaning of the state law and (2)
there exists a reasonable probability that the state court’s clarification of state law might obviate
the need for a federal constitutional ruling.” Wis. Right to Life State Political Action Comm. v.
Barland, 664 F.3d 139, 150 (7th Cir. 2011) (citation omitted). Moreover, under Wisconsin law,
“where administrative action has taken place, and a statute sets forth a specific procedure for
review of that action and court review of the administrative decision, the statutory remedy is
exclusive and the parties cannot seek judicial review of the agency decision through other means.”
Thomas v. McCaughtry, 201 F.3d 995, 1001 (7th Cir. 2000) (citation omitted). Also, a “case is

1547

4
Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 30 Document 59

moot when the issues presented are no longer live or the parties lack a legally cognizable interest
in the outcome.” Stotts v. Cmty. Unit Sch. Dist. No. 1, 230 F.3d 989, 990 (7th Cir. 2000) (internal
quotation marks and citations omitted). And as the Eleventh Circuit and Eastern District of
Michigan recognized in rejecting substantially identical claims over the past couple days, the
failure to overcome these hurdles to establishing a justiciable controversy is fatal to Plaintiff’s
claims. King, Op. & Order, at *16; Wood v. Raffensberger, 2020 WL 7094866, at *6.
The equitable doctrine of laches may also bar a complaint if a plaintiff’s “unwarranted
delay in bringing a suit or otherwise pressing a claim produces prejudice to the defendant. In the
context of elections, this means that any claim against a state electoral procedure must be expressed
expeditiously.” Fulani v. Hogsett, 917 F.2d 1028, 1031 (7th Cir. 1990) (citations omitted).
Upon satisfying those basic requirements for pursuing any claim in federal court, a Plaintiff
then can nonetheless overcome a motion to dismiss only if the allegations underlying his claims
are plausible. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007); Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). And where, as here, a plaintiff alleges fraud, the Federal Rules apply a heightened
pleading standard. See Fed. R. Civ. P. 9(b) (“In alleging fraud or mistake, a party must state with
particularity the circumstances constituting fraud or mistake.”). Under this heightened standard, a
plaintiff “must describe the ‘who, what, when, where, and how’ of the fraud.” Pirelli Armstrong
Tire Corp. Retiree Med. Benefits Trust v. Walgreen Co., 631 F.3d 436, 441 (7th Cir. 2011) (quoting
United States ex rel. Lusby v. Rolls-Royce Corp., 570 F.3d 849, 854 (7th Cir. 2009)).
A court must hear and resolve a properly filed motion to dismiss for the reasons stated
above before proceeding to address any other matters. Pursuant to Fed. R. Civ. P. 12(i), a motion
under brought under 12(b)(1) and 12(b)(6) “must be heard and decided before trial, unless the
court orders a deferral until trial.”

1548

5
Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 30 Document 59

ARGUMENT
Plaintiff’s claims are utterly meritless and should be dismissed for several reasons. First,
Plaintiff lacks standing to bring his claims. Second, Plaintiff’s claims are non-justiciable in this
Court because they are the subject to the exclusive remedy provided in state law, and are properly
subject to abstention, are either moot (with respect to some of the requested relief) or not yet ripe
(as to others) for Plaintiff’s failure to exhaust state administrative remedies, and are moot. Third,
the Eleventh Amendment of the U.S. Constitution bars Plaintiff’s claims. Fourth, even if Plaintiff
had standing and his claims were properly before this Court, they are barred by the doctrine of
laches. Fifth, and finally, Plaintiff’s claims, rooted in a toxic combination of deeply fatally flawed
“expert” “analysis” and wholly unsupported leaps of logic lacking any factual foundation in the
Wisconisn election come nowhere near meeting the Twombly/Iqbal plausibility standard. are For
all of these reasons, this Court should dismiss Plaintiff’s Amended Complaint in the first instance,
without ever adjudicating Plaintiff’s motion for injunctive relief.
I.

Plaintiff Lacks Standing to Assert His Claims in Federal Court.
Plaintiff lacks standing to bring his claims, both under Article III of the U.S. Constitution

and as a prudential matter. “The doctrine of standing asks whether a litigant is entitled to have a
federal court resolve his grievance. This inquiry involves “both constitutional limitations on
federal-court jurisdiction and prudential limitations on its exercise.’” Kowalski v. Tesmer, 534 U.S.
125, 128-29 (2004) (quoting Warth v. Seldin, 422 U.S. 490, 498 (1975)). To establish standing,
Plaintiff must show: (1) injury in fact; (2) a causal connection between the claim and the alleged
injury; and (3) redressability of the claimed harm. Democratic Party of Wis., 966 F.3d at 585. The
law is clear: general grievances applicable to everyone do not establish standing. Winkler, 481
F.3d at 979 (quoting Newdow, 542 U.S. at 11-12). Plaintiff has alleged a general grievance, based

1549

6
Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 30 Document 59

on speculation and conjecture, that does not differentiate his claimed injury from that of other
Wisconsin voters. It follows that Plaintiff lacks standing.
A.

Plaintiff lacks standing to pursue his Electors and Elections Clauses Claim.

Plaintiff claims that Defendants violated Wisconsin election law, usurping the power of the
Legislature. Specifically, Plaintiff claims that Defendants facilitated the illegal use and counting
of absentee ballots by individuals who, allegedly, did not qualify as “indefinitely confined” under
state law, contradicted state law which provides that absentee ballots may not be counted if the
certification lacks a witness address, and illegally cured absentee ballots by filling in missing
witness or voter information. (Amend. Cmplt. ¶¶37-45, 104-106) But Plaintiff alleges general
“harms” of statewide non-compliance with election laws that would apply to any of the 3.3 million
Wisconsin voters. This is “precisely the kind of undifferentiated, generalized grievance about the
conduct of government that [courts] have refused to countenance in the past.” Lance v. Coffman,
549 U.S. 437, 442 (2007).
Nor does Plaintiff does gain standing by virtue of his role as a potential presidential elector.
Presidential electors have a purely ministerial role under Wisconsin law. The presidential electors
pledged to the candidate who won the popular vote, as determined by the state canvass, meet at
the state capitol on the first Monday after the second Wednesday in December. Wis. Stat. § 7.75(1).
Those presidential electors “shall vote by ballot for that person for president and that person for
vice president who are, respectively, the candidates” for or by whom they were nominated. Wis.
Stat. § 7.75(2) (emphasis added). It is mandatory, not discretionary, that a presidential elector vote
for the winner of the statewide popular vote, and there can be no claim that Plaintiff is deprived of
any individual or personal right under the Electors and the Elections Clauses by Defendants’
alleged failure to administer the election in the manner that Plaintiff desires. Indeed, the Third
Circuit recently held that plaintiffs, whether voters or elector candidates, have no private right of

1550

7
Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 30 Document 59

action at all under the Electors and Elections Clauses. Bognet v. Sec’y of Commonwealth, No. 203214, 2020 WL 6686120, at *19 (3d Cir. Nov. 13, 2020); accord Hotze v. Hollins, No. 4:20-cv03709, 2020 WL 6437668, at *2 (S.D. Tex. Nov. 2, 2020); King, Op. & Order, at *28-*30.2
Treating electors the same as every other voter for these standing purposes makes sense, given that
electors, confined by state law to executing a mandatory duty to vote for the winner of the statewide
popular vote, have no personal interest under the Electors and Elections Clauses distinguishable
from the rest of the voting population. While electors no doubt have a preference as to who wins
the election, that is no different from any of the other millions of Wisconsin voters who voted in
the election.
Prudential standing compels the same result. Under the prudential standing doctrine, even
plaintiffs who can show some injury in fact, unlike Plaintiff here, may nonetheless, “assert only a
violation of [their] own rights.” Virginia v. Am. Booksellers Ass’n, 484 U.S. 383, 392 (1988). Here,
Plaintiff’s claims rest entirely on the rights of third parties: the right of the Legislature (which has
chosen not to litigate) to determine how elections are conducted; the right of President Trump (who
is litigating in state court under Wis. Stat. § 9.01) to be awarded Wisconsin’s electoral votes if, as
alleged, he received the highest number of votes; and the rights of unidentified non-party
Wisconsin voters whose votes allegedly were not properly counted or were diluted by the counting
of illegally cast ballots. Plaintiff, himself, has not alleged and cannot claim to have suffered any
individualized harm or violation of his own rights. He thus lacks standing to proceed in this Court.

2

Plaintiff erroneously cites Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020) (per curiam), to assert
presidential electors have Article II standing. Carson is an outlier and wrong as a matter of law. The weight
of federal authority holds that only state legislatures have standing to bring Electors/Elections Clause cases
in cases like this.

1551

8
Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 30 Document 59

B.

Plaintiff also lacks standing to pursue Equal Protection, Due Process, and
“widespread fraud” claims.

The standing principles that doom Plaintiff’s lead claim in Count I for violations of the
Elections and Electors Clauses also foreclose his claims in Counts II-IV for violations of the Equal
Protection Clause, the Due Process Clause, and “Widespread Ballot Fraud.” The common thread
running through each of these claims is that Plaintiff’s vote was diluted because Wisconsin
counties counted some votes that Plaintiff contends were “illegal” and failed to count some votes
that Plaintiff contends were “legal.” But here again, Plaintiff fails to provide any detail whatsoever
of a concrete constitutional harm. Courts have consistently, including with respect to the
November 2020 election, rejected the notion that the generalized grievance of alleged vote dilution
provides private plaintiffs, like Plaintiff here, with a right of action. Bognet, 2020 WL 6686120, at
*11 (“This conceptualization of vote dilution—state actors counting ballots in violation of state
election law—is not a concrete harm.”); Wood, 2020 WL 6817513, at *5 (“This is a textbook
generalized grievance.”), aff’d, No. 20-14418, 2020 WL 7094866, at *7 (11th Cir. Dec. 5, 2020)
(“Vote dilution in this context is a paradigmatic generalized grievance that cannot support
standing.”); Moore v. Cicosta, No. 1:20-cv-911, 2020 WL 6063332, at *14 (M.D.N.C. Oct. 14,
2020) (“[T]he notion that a single person’s vote will be less valuable as a result of unlawful or
illegal ballots being cast is not a concrete and particularized injury in fact necessary for Article III
standing.”). There is a good reason for this standing principle that precludes private plaintiffs from
challenging governmental action or inaction that impacts the public generally: otherwise, any
enterprising conspiracy theorist with a Twitter following could run a GoFundMe campaign to fuel
a series of meritless (and seemingly unending) challenges to the results of an election.

1552

9
Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 30 Document 59

II.

Plaintiff’s Claims Are Not Justiciable in this Court.
A.

The exclusive remedy for Plaintiff’s claims is in state court.

The gravamen of Plaintiff’s claims, “alleged irregularity, defect, or mistake committed
during the voting or canvassing process,” is addressed by the sole remedy of a recount process
outlined in state law. Wis. Stat. § 9.01(11). The recount statute “constitutes the exclusive judicial
remedy” for such claims under state law. Id. The plain language of the statute is unambiguous on
this point, as recently confirmed by the Wisconsin Supreme Court. Trump v. Evers, No.
2020AP1971-OA, Order at *2 (Wis. Dec. 3, 2020); see also id. (Hagedorn, J. concurring)
(“[C]hallenges to election results are also governed by law. … [Section 9.01] provides that these
actions should be filed in the circuit court, and spells out detailed procedures for ensuring their
orderly and swift disposition.”); Wis. Voters Alliance v. Wis. Elections Comm’n, No. 2020AP1930OA, Order at *3 (Wis. Dec. 4, 2020) (Hagedorn, J. concurring in denial of petition for original
action, joined by a majority of the Justices) (noting that one reason petition for original action was
“woefully deficient” was because it failed to “consider the import of election statutes that may
provide the ‘exclusive remedy,’” namely, Wis. Stat. §§ 5.05(2m) and 9.01).
President Trump requested a recount, the results of which are currently being appealed in
state circuit court pursuant to Wisconsin law. Many of Plaintiff’s claims of election law
“violations” are in fact currently being litigated where they must be brought: via the recount
process in state court. Federal jurisdiction is not available to circumvent the Wisconsin
Legislature’s designated forum for challenging an election simply by bootstrapping concerns about
the constitutional right to vote to any election-related cause of action. Wisconsin has instituted a
strict set of procedures for challenging election results, permitting such challenges only when
election results are close (no more than a 1% difference between the leading candidates), and
requiring such challenges to be brought and proceed promptly. Wis. Stat. § 9.01(1)(a)5.b. To

1553

10
Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 30 Document 59

permit Plaintiff to circumvent these procedures and time limits, through the artifice of filing a
federal lawsuit bootstrapping federal claims onto what at bottom are grievances about state
officials purportedly failing to properly follow state election law, would eviscerate Wisconsin’s
careful process for properly and quickly deciding election challenges. If plaintiffs are not required
to avail themselves of Wisconsin’s strict procedural and timing requirements for challenging
election results, what’s to stop other disappointed Republican voters or candidates from filing
lawsuit after lawsuit until January 20 (if not beyond)? Such a result would not just offend state law
but would permit crafty litigants to blow past federal guideposts for finalizing the presidential
election results; it would further destabilize our democracy and undermine the will of Congress,
the Wisconsin legislature and, above all, the will of Wisconsin’s voters. See also infra Part IV
(laches).
B.

The Court should abstain from deciding this case.

This Court should abstain from exercising jurisdiction over this case. Abstention under the
Pullman doctrine is warranted when “there is a substantial uncertainty as to the meaning of state
law” and “there exists a reasonable probability that the state court’s clarification of state law might
obviate the need for a federal constitutional ruling.” Wis. Right to Life State Political Action
Comm., 664 F.3d at 150 (quotation omitted). In other words, this Court should abstain if it
concludes that “the resolution of a federal constitutional question might be obviated if state courts
were given the opportunity to interpret ambiguous state law.” Quackenbush v. Allstate Ins. Co.,
517 U.S. 706, 716-17 (1996). These criteria are easily met here: in accordance with Wisconsin
state law, Wisconsin courts are currently considering a recount appeal raising issues that overlap
with those Plaintiff asserts here. See Trump v. Biden, No. 2020CV7092, Order for Consolidation
and for Appointment of Judicial Officer (Milwaukee Cty. Cir. Ct. Dec. 3, 2020).

1554

11
Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 30 Document 59

First, the Wisconsin state law issues underlying Plaintiff’s claims are sufficiently uncertain
to warrant abstention. When similar issues were raised in a petition for leave to commence an
original action in the Wisconsin Supreme Court, three Justices of that court characterized the
claims as presenting a “matter of statewide concern that requires a declaration” of the relevant
Wisconsin law. See Wisc. Voters All. v. Wisc. Elections Comm’n, Order, No. 2020AP1930-OA, at
*4 (Wis. Dec. 4, 2020) (Roggensack, Ziegler, and Bradley, JJ., dissenting). Particularly in light of
the sensitive issues of state law implicated by Plaintiff’s claims, the Court should abstain from
addressing those issues pending state courts’ consideration of them.
Second, there exists a reasonable probability that the recount appeal will clarify enough
issues of state law to significantly narrow or eliminate altogether the federal constitutional issues
Plaintiffs allege are presented in this case. In particular, the recount appeal is likely to provide a
resolution on several state law issues raised in this case: the proper interpretation of Wisconsin
Stat. § 6.87’s absentee ballot signature verification requirements (see Recount Pet. ¶4; Amend.
Cmplt. ¶¶43-45), and Wisconsin Stat. § 6.86(2)’s voter identification requirements (see Recount
Pet. ¶6; Amend. Cmplt. ¶¶38-42). There is therefore a strong probability that resolution of the
state-law recount appeal process will obviate this Court’s need to address most or all of the federal
constitutional issues raised here. Accordingly, to “avoid the waste of a tentative decision as well
as the friction of a premature constitutional adjudication,” Pullman, 312 U.S. at 500, this Court
should refrain from injecting itself into the middle of this dispute.
C.

Plaintiff’s failure to exhaust administrative remedies bars litigation.

Plaintiff, as a Wisconsin voter, is required to bring elections claims through a complaint to
the Wisconsin Elections Commission pursuant to Wis. Stat. § 5.06. This provision provides an
exclusive administrative remedy to all voters. The administrative procedure allows WEC to

1555

12
Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 30 Document 59

investigate the complaint to determine whether it has any merit, and potentially provide the
complainant with a hearing. Wis. Stat. §§ 5.06(1) and (5). Critically, Wis. Stat. § 5.06(2) prohibits
commencing any “action or proceeding to test the validity of any decision, action or failure to act
on the part of any election official … without first filing a complaint…” Plaintiff has not complied
with this mandatory administrative procedure. There are no allegations in the Amended Complaint,
nor any copies of any WEC complaint forms attached as exhibits. Since Plaintiff has failed to
exhaust his administrative remedies, this Court cannot provide the extraordinary relief requested.
See Glisson v. U.S. Forest Serv., 55 F.3d 1325, 1326 (7th Cir. 1995).
D.

Plaintiff’s requests for relief are moot.

Plaintiff’s claims are also barred because his requested relief is moot. Federal courts may
adjudicate only “live cases and controversies.” See Murphy v. Hunt, 455 U.S. 478, 481 (1982). “A
case is moot when the issues presented are no longer live or the parties lack a legally cognizable
interest in the outcome.” Stotts, 230 F.3d at 990 (internal quotation marks and citations omitted).
“When a case is moot, it must be dismissed as non-justiciable.” Id. at 991.
All of Plaintiff’s requests for relief relate to the general election held on November 3, 2020,
and its results. (Amend. Cmplt. ¶¶138-42) In part, Plaintiff asks the Court to (1) order Defendants
to decertify the election results; (2) enjoin Defendant Governor Evers from transmitting the already
certified election results to the Electoral College; and (3) order Defendant Governor Evers to
transmit certified election results stating that President Donald Trump is the election winner. (Id.
¶142) But, as was recently confirmed in both Georgia and Michigan where similar requests for
relief were reviewed, this relief is no longer available to Plaintiff and his claims are moot. See
King, Op. & Order, at *13-*16; Wood, 2020 WL 7094866, at *6-7.

1556

13
Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 30 Document 59

By the time Plaintiff filed his claim, not only had all 72 counties in Wisconsin finished
canvassing their results and reported those results to the WEC: (1) both Dane and Milwaukee
Counties had completed a full recount and reported their results to the WEC; (2) the WEC
Chairperson had completed the statewide canvass and certified the results: (3) Governor Evers had
signed the certificate of ascertainment and submitted the slate of presidential electors to the U.S.
Archivist; and (4) the U.S. Archivist had confirmed receipt. To paraphrase Judge Parker in
Michigan, by the time Plaintiff filed his complaint, the ship had sailed. See King, Op. & Order, at
*13. Similarly, Judge Pryor of the Eleventh Circuit stated:
“We cannot turn back the clock and create a world in which” the 2020 election results are
not certified. Fleming v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015). And it is not
possible for us to delay certification nor meaningful to order a new recount when results
are already final and certified.

Wood, 2020 WL 7094866, at *6.
Because Wisconsin has already certified the election results, Plaintiff’s requests to delay
or prevent certification are moot and his complaint should be dismissed, as judges in several other
states have concluded. “[T]here is no basis in law by which the courts may grant Petitioner’s
request to ignore the results of an election and recommit the choice to substitute its preferred slate
of electors for the one chosen by a majority of Pennsylvania’s voters.” Kelly v. Commonwealth,
No. 68 MAP 2020, 2020 WL 7018314, at *3 (Pa. Nov. 28, 2020)) (Wecht, J., concurring); see also
Wood, 2020 WL 6817513, at *13 (concluding that “interfer[ing] with the result of an election that
has already been concluded would be unprecedented and harm the public in countless ways”).
III.

Plaintiff’s Claims are Barred by the Eleventh Amendment.
Plaintiff’s claims face yet another insurmountable hurdle: the Eleventh Amendment. The

Eleventh Amendment bars federal courts from granting “relief against state officials on the basis
of state law, whether prospective or retroactive.” Pennhurst State Sch. & Hosp. v. Halderman, 465

1557

14
Case 2:20-cv-01771-PP Filed 12/07/20 Page 15 of 30 Document 59

U.S. 89, 106 (1984). This bar applies when the relief sought would require a federal court to
“instruct[] state officials on how to conform their conduct to state law.” Pennhurst, 465 U.S. at
106. It therefore precludes relief when, as here, plaintiffs have tried to disguise their state law
claims as federal causes of action.
As federal courts have repeatedly emphasized, if the “gravamen” of a claim is that the state
has “improperly interpreted and failed to adhere” to state law, a plaintiff cannot plead around an
Eleventh Amendment problem by asserting that that failure to follow state law violates the federal
constitution. S&M Brands, Inc. v. Georgia ex rel. Carr, 925 F.3d 1198, 1204-05 (11th Cir. 2019);
see also Massey v. Coon, No. 87-3768, 1989 WL 884, at *2 (9th Cir. Jan. 3, 1989) (holding state
official immune where claim was brought under the Due Process and Equal Protection Clauses of
the Constitution “on its face,” but such “constitutional claims [were] entirely based on the failure
of defendants to conform to state law”); Balsam v. Sec’y of State, 607 F. App’x 177, 183-84 (3d
Cir. 2015) (applying the bar to claims “premised on violations of the federal Constitution”); Acosta
v. Democratic City Comm., 288 F. Supp. 3d 597, 626 (E.D. Pa. 2018) (explaining that, “[e]ven
when voters attempt to tie their state law claims into their federal claims, the Eleventh Amendment
bars the state law claims” (quotation omitted)); Six v. Newsom, 462 F. Supp. 3d 1060, 1073 (C.D.
Cal. 2020) (denying temporary restraining order in part because Fifth and Fourteenth Amendment
claims were predicated on violations of state law); Thompson v. Alabama, No. 2:16-CV-783WKW, 2017 WL 3223915, at *8 (M.D. Ala. July 28, 2017) (denying injunction putatively based
on federal constitutional claims because those claims rested on premise that state officials were
violating state law).
That is just what Plaintiff has done here. Count I, for instance, alleges that Defendants
violated the Elections and Electors Clauses by somehow exercising their powers in a way that

1558

15
Case 2:20-cv-01771-PP Filed 12/07/20 Page 16 of 30 Document 59

“conflict[s] with existing legislation” enacted by the Wisconsin legislature. (Amend. Cmplt. ¶105)
But to assess whether that is so, the court would have to adjudicate a host of state law questions,
including interpreting the State’s photo identification law (id. ¶¶40-45), its address certification
requirements (id. ¶¶46-47), and its purported ballot-processing restrictions (id. ¶48), as well as the
scope of any delegation to state and county election boards. The same questions underlie Count II,
Plaintiff’s Equal Protection Clause claim, which relies on allegations that Defendants failed to
comply with the requirements of the Wisconsin Election Code. (Id. ¶116) Similarly, the Due
Process Clause claim asserted in Count III would require concluding that Wisconsin ballots were
not tallied in accordance with Wisconsin law—and asks this Court to order decertification or a
recount based on claims about what Wisconsin law requires for certification. (See id. ¶131) And
while Count IV is captioned as “Wide-Spread Ballot Fraud” and cites federal vote-dilution law
(see id. ¶¶132-38), the factual allegations on which it is premised raise state-law issues with respect
to election administration and voting by allegedly ineligible voters. (Id. ¶54)
The relief Plaintiff seeks thus “conflicts directly with the principles of federalism that
underlie the Eleventh Amendment.” Pennhurst, 465 U.S. at 106.
IV.

The Doctrine of Laches Bars Plaintiff’s Claims.
Even if Plaintiff has standing, which he does not, and his claims are both justiciable in this

Court and not barred by the Eleventh Amendment, the doctrine of laches bars his claims because
he has unreasonably delayed bringing his claims to the detriment not only of Defendants, but also
of the nearly 3.3 million voters in Wisconsin who voted in this last election under the good-faith
belief they were following the correct procedures to have their votes counted. “Laches arises when
an unwarranted delay in bringing a suit or otherwise pressing a claim produces prejudice to the
defendant. In the context of elections, this means that any claim against a state electoral procedure
must be expressed expeditiously.” Fulani, 917 F.2d at 1031.In the elections context, federal courts

1559

16
Case 2:20-cv-01771-PP Filed 12/07/20 Page 17 of 30 Document 59

regularly dismiss claims brought both before and after elections based on laches, “lest the granting
of post-election relief encourage sandbagging on the part of wily plaintiffs.” Soules v. Kauaians
for Nukolii Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988). This is because of “the
extremely disruptive effect of election invalidation and the havoc it wreaks upon local political
continuity.” Id.; see also, e.g., Knox v. Milw. Cty. Bd. of Election Comm’rs, 581 F. Supp. 399, 402
(E.D. Wis. 1984) (laches warranted denial of preliminary injunction to restrain Wisconsin county
elections where complaint was filed seven weeks before election).
Indeed, relating to the election at issue here, a federal court in Georgia rejected similar
challenges to the presidential election results in that state on laches grounds. See Wood, 2020 WL
6817513. In doing so, the court stressed that laches principles are particularly salient in postelection cases because of the potential impact on the rights of voters and on public confidence in
the electoral process. Unlike a pre-election challenge to the rules, the court explained, Wood
“wants the rules for the already concluded election declared unconstitutional and over one million
absentee ballots called into question. Beyond merely causing confusion, Wood’s requested relief
would disenfranchise a substantial portion of the electorate and erode public confidence in the
electoral process.” Id. at *8. The same is true here. Plaintiff unreasonably delayed bringing his
claims not only until after the election, but nearly a month after Election Day. This delay is
manifestly unwarranted and unreasonable, providing ample grounds for dismissal.
Plaintiff’s equal protection and due process claims in Counts II and III are based on alleged
violations of Wisconsin election laws. (Amend. Cmplt. ¶¶116, 129) Specifically, Plaintiff
complains about directives the WEC issued in October 2016, May 2020, and October 2020,
relating to absentee ballot procedures. (Id. ¶¶37-45) In Count IV, Plaintiff alleges widespread
ballot fraud, or more accurately, suggests that ballot fraud could have potentially occurred, from

1560

17
Case 2:20-cv-01771-PP Filed 12/07/20 Page 18 of 30 Document 59

the use of Dominion Voting Machines.3 (Id. ¶¶132-35) Plaintiff does not claim actual knowledge
that any of these policies or procedures led to counting a single illegal vote or discounting a single
legal vote in Wisconsin. Neither does Plaintiff provide any explanation for why he waited until
nearly a month after the election to bring his claims. More egregiously, he does not explain why
he waited more than six months since the May 2020 guidance was issued and more than four years
since the October 2016 guidance was issued to challenge these procedures.4 Yet, he now asks this
Court to disenfranchise tens of thousands of citizens, if not all of the nearly 3.3 million Wisconsin
voters, who cast their ballots in reliance upon the election proceeding under established rules.
Plaintiff, by his own admission, has long been on notice about alleged “irregularities” with
Dominion voting machines. Throughout his Amended Complaint, Plaintiff alleges that Dominion
machines perpetuated errors and fraud based on publicly available evidence, including that: (1) in
2018, an expert witness testified about Dominion’s vulnerabilities (see Amend. Cmplt. ¶¶67-68);
(2) on January 24, 2020, Texas opted not to use Dominion due to the possibility of fraud (see
Amend. Cmplt. ¶64 and Exh. 11); and (3) on October 22, 2020, the Northern District of Georgia
issued an order as to Dominion voting machines (see Amend. Cmplt. ¶¶65-66). Plaintiff makes no
effort to offer a justifiable explanation for why he waited until weeks after the election to challenge
the use of Dominion voting machines in Wisconsin.

3

To the extent that Plaintiff claims that he was illegally, or at least inappropriately, prevented from
observing the election process (Amend. Cmplt. ¶¶117, 130, 140), this allegation is too underdeveloped to
constitute a sufficient claim for relief. Plaintiff’s sparse allegation is completely devoid of specificity and
without any evidentiary support. On its face, this allegation appears to be a recycled argument from a similar
lawsuit filed in a different state. Moreover, Plaintiff’s claim is obviated by the fact that a public recount,
with observers from both campaigns, was conducted in Dane and Milwaukee Counties after Election Day.
4

Lest the Court infer that Plaintiff acted with greater alacrity in response to the October 2020
guidance, that is incorrect. The October 2020 guidance merely restated the policy adopted by the WEC in
October 2016. There was nothing new about it. (Amend. Cmplt. ¶¶44-45)

1561

18
Case 2:20-cv-01771-PP Filed 12/07/20 Page 19 of 30 Document 59

There can be no doubt that Plaintiff’s delay, if it somehow resulted in his desired relief of
decertifying the Wisconsin election results and awarding Wisconsin’s electors to the losing
candidate instead of the winning candidate, would prejudice both Defendants and the nearly 3.3
million Wisconsinites who cast their votes in the election. Local municipal officials, often parttime workers, administered this election, and Wisconsin voters participated in this election, in
reliance on the propriety of the pre-election policies that Plaintiff only now belatedly seeks to
challenge. Had Plaintiff raised and diligently pursued his challenges to these policies and before
the election, as he should have, then any required changes to election procedures could have been
implemented in response to any court rulings before the election—before, that is, the voters of
Wisconsin participated in the election in reliance on these very policies. Courts routinely decline
to change the rules of elections in the days and weeks leading up to an election, because of the
significant prejudice caused by last-minute changes, which can result in voter confusion and
depressed turnout. See, e.g., Purcell v. Gonzalez, 549 U.S. 1, 4-5 (2006). A court decision to
retroactively change the rules after the election, and to invalidate tens of thousands, if not millions,
of votes in the process, is even more unacceptable.
Federal appellate courts have repeatedly held that voters should not have their votes
nullified for having followed guidance, policies, and court decisions in effect when they cast their
ballot. See, e.g., Griffin v. Burns, 570 F.2d 1065, 1074-75 (1st Cir. 1978); Ne. Ohio Coal. for the
Homeless v. Husted, 696 F.3d 580, 597 (6th Cir. 2012). These courts have relied both on
fundamental notions of fairness and on federal constitutional due-process protections. And this
very election cycle, the U.S. Supreme Court followed suit in Andino v. Middleton, No. 20A55,
2020 WL 5887393 (U.S. Oct. 5, 2020). In that case, the Supreme Court stayed a district court’s
order, in effect reinstating a briefly enjoined state-law witness requirement for absentee ballots.

1562

19
Case 2:20-cv-01771-PP Filed 12/07/20 Page 20 of 30 Document 59

See id. But, in doing so, the Supreme Court expressly stated that any votes cast while the district
court’s order had been in effect “may not be rejected for failing to comply with the witness
requirement.” Id. The Court recognized the need to validate voters’ reliance on the rules in place
at the time they voted.
Nullifying tens of thousands, if not millions, of votes cast in the November general election
based on Plaintiff’s inexcusably belated challenges to policies and court decisions in place well
before the election would violate due process just as surely as the decisions struck down in Griffin
and Husted, and would run afoul of the U.S. Supreme Court’s decision in Andino. Violating both
the voting and due process rights of Wisconsinites would be hugely, unfairly, and indisputably
prejudicial.
V.

Plaintiff’s Amended Complaint Fails to Meet Federal Pleading Standards.
Because Plaintiff’s claims fail on jurisdictional and justiciability grounds, the Court need

not reach the merits to dismiss the case with prejudice. Nonetheless, should the Court conclude
that Plaintiff has standing, that this claims are justiciable, and that the doctrine of laches does not
apply, Plaintiff’s claims should be dismissed for their insurmountable pleading deficiencies – there
is simply no plausible basis for the far-reaching conspiracy Plaintiff alleges, and no plausible
support for his claim the Wisconsin election results were the product of anything other than
counting the valid votes that were cast in reliance on the election procedures in effect. And
Plaintiff has only magnified the gross deficiencies and utter ridiculousness and implausibility of
his claims with the affidavits and so-called experts incorporated by reference in his complaint.
Plaintiff’s Amended Complaint fails to meet the fundamental threshold requirement under Rule
12(b)(6) of stating a claim upon which relief can be granted, and certainly falls short of Rule 9(b)’s
mandate to plead all claims of fraud with particularity.

1563

20
Case 2:20-cv-01771-PP Filed 12/07/20 Page 21 of 30 Document 59

A.

Assuming all of Plaintiff’s allegations are true, they do not make a plausible
allegation that Dominion Voting Systems machines were hacked in Wisconsin.

For purposes of the Rule 12(b)(6) analysis, this Court must assume Plaintiff’s allegations,
no matter how fantastical, are true. Brooks v. Ross, 578 F.3d 574, 581 (7th Cir. 2009). The Court
must draw reasonable inferences from those allegations. Tamayo v. Blagojevich, 526 F.3d 1074,
1081 (7th Cir. 2008). But it need not go further and follow Plaintiff down a path of conjecture and
conspiracy that is not supported by the facts. Taha v. Int’l Bhd. of Teamsters, Local 781, 947 F.3d
464, 472 (7th Cir. 2020). And, without blindly following Plaintiff through flights of fancy, leaps
of faith, and logical fallacies, there is no claim here.
The allegations based on Plaintiff’s first exhibit set the tone. That exhibit is a declaration
from an anonymous witness who claims to have had ties to long-dead Venezuelan dictator Hugo
Chavez5 and involvement in rigging elections in that country. (Amend. Cmplt. ¶¶8-9, 81, 87 &
Exh. 1) Plaintiff’s anonymous declarant acknowledges having little knowledge of the electoral
process in the United States: “I have not participated in any political process in the United States,
have not supported any candidate for office in the United States, am not legally permitted to vote
in the United States, and have never attempted to vote in the United States.” (Amend. Cmplt. Exh.
1) The witness claims to have witnessed the creation and operation of a voting systems company
called “Smartmatic,” and claims this system was used to manipulate elections in favor of Chavez
and his successor, Nicolas Maduro. (Amend. Cmplt. Exh. 1) The witness also claims this system
was used to rig elections throughout Latin America. (Id. ¶20) This witness further claims that
descendants of this “Smartmatic” system are now “in the DNA” of voting software systems used

5

See William Neuman, “Chavez Dies, Leaving Sharp Divisions in Venezuela,” N.Y. Times (Mar.
6, 2013), available at https://www.nytimes.com/2013/03/06/world/americas/hugo-chavez-of-venezueladies.html (last visited Dec. 5, 2020).

1564

21
Case 2:20-cv-01771-PP Filed 12/07/20 Page 22 of 30 Document 59

in the United States, including Dominion Voting Systems, such that they could be exploited by
unscrupulous persons seeking to manipulate election results. (Id. ¶5) There is no allegation here
that any of this has anything to do with Wisconsin. The declarant asserts that, in the U.S. election
on November 3, 2020, “vote counting was abruptly stopped in five states using Dominion
software” when “Donald Trump was significantly ahead in the votes.” (Id. ¶26) He then jumps to
“the wee hours of the morning,” when he vaguely asserts that “something significantly changed”
and “[w]hen the vote reporting resumed the very next morning there was a very pronounced change
in favor of the opposing candidate, Joe Biden.” (Id.) Notably, there is no explanation—in the
Amended Complaint, this anonymous declaration, or elsewhere in Plaintiff’s filings—of which
states stopped vote counting, what changed in the wee hours, or that any fraudulent activity
occurred in Wisconsin.
Plaintiff alleges that Dominion Voting Systems machines could be hacked, but he makes
no plausible allegation that Dominion machines in Wisconsin were hacked and manipulated.
“When a complaint’s facts do not permit the court to infer more than the mere possibility of
misconduct, the complaint has alleged—but has not shown—that the pleader is entitled to relief.”
Taha, 947 F.3d at 469 (quoting Iqbal, 556 U.S. at 679) (internal quotation marks omitted).
Moreover, beyond presenting allegations of potential vulnerabilities of Dominion machines and
software, Plaintiff offers no plausible connection whatsoever between these allegations and any
impact on the results of the election in Wisconsin. Risk of fraud does not constitute fraud.
B.

Plaintiff’s allegations regarding “unreturned absentee ballots” and out-ofstate voters provide no basis for overturning the election results.

Plaintiff’s claim that there were a sufficient number of illegal votes counted and legal votes
uncounted to overturn the results of the election is based on the statistical analysis of two proffered
experts. Wiliam Briggs, self-proclaimed “Statistician to the Stars!” (Amend. Cmplt. Exh. 2 at 9),

1565

22
Case 2:20-cv-01771-PP Filed 12/07/20 Page 23 of 30 Document 59

provides statistical analysis, though without any methodological explanation or support. Briggs
bases his opinions entirely on survey data provided by Matthew Braynard. (Id. at 2) But Braynard
is not a qualified expert. In support of Braynard’s qualifications, Plaintiff submits an “expert
report” submitted by Braynard to the Wisconsin Supreme Court along with the Wisconsin Voters
Alliance’s petition for original action. (Amend. Cmplt. Exh. 3) However, although the report states
that Braynard’s resume is attached (id. at 3) it is not. Thus, Plaintiff apparently expects the Court
to assume (without basis for doing so) Braynard’s qualifications but the Court need not do so, as
Braynard’s resume was filed in a proposed petition to the Wisconsin Supreme Court, and reveals
that he is a former Trump campaign staffer with an undergraduate business degree and a masters
of fine art and “writing” who and has worked on various Republican campaigns. See Report of
Matt Braynard, Wis. Voters Alliance, No. P2020AP1930-OA, attached as Exh. 15.
Braynard has an undergraduate business degree and an MFA in “writing”, and he has
worked on various Republican campaigns, including the Trump campaign. (Id. at 3-4) Braynard
does not have any apparent training or expertise in survey-based research; he does not purport to
have any expertise in linking and analyzing complex databases; he does not have any peerreviewed publications relating to election data or data analysis; and he apparently has never been
qualified to serve as an expert witness in any matter in any court. (Id. at 4) His survey
methodologies have not been disclosed, and the complaint provides no basis for inferring that he
is competent to conduct a reliable survey that would comport with professional standards in the
field, or that he even endeavored to do so. According to a recent article in the Washington Post
(and his own postings on Twitter), Braynard and a team of contractors he has retained using crowdsourced funds, engaged in an effort to “hunt for fraud” in the 2020 election. 6
6

See Jon Swaine & Lisa Raine, “The federal government’s chief information security officer is
helping an outside effort to hunt for alleged voter fraud,” Washington Post (Nov. 15, 2020), available

1566

23
Case 2:20-cv-01771-PP Filed 12/07/20 Page 24 of 30 Document 59

Despite the purported “expert” status of his report, Braynard fails to provide even a cursory
explanation of his survey methodologies and whether those methodologies comported with the
standards required for considering a survey reliable, the steps taken to ensure his samples were
random and representative of the underlying population, or the steps taken to account for possible
inaccuracies or falsehoods provided in survey responses. Obviously Braynard is not a qualified
expert and his “expert opinions” regarding absentee ballots in Wisconsin are likely not admissible,
let alone credible. The same Braynard report was submitted in the Wisconsin Supreme Court
recently, leading a majority of the Court to cite “legitimate arguments that [Braynard’s] report
would not even be admissible evidence.” Wis. Voters Alliance, No. 2020AP1930-OA, Order at *3
(Hagedorn, J. concurring in denial of original action petition, joined by majority of the Justices).
Briggs’s analysis relies upon Braynard’s data without question, assuming the validity of
Braynard’s conclusion that there were approximately 96,771 “unreturned absentee ballots” in
Wisconsin. 7 (Amend. Cmplt. Ex 3 at 4) By relying upon Braynard’s statistically unreliable data,
Briggs’s expertise is also questionable, at best. The printout of Wisconsin-specific data included
with Briggs’s report further undermines the plausibility of Briggs’s assertions. (Amend. Cmplt.
Exh. 2 at 4-7) This printout indicates that survey respondents were asked whether they requested
an absentee ballot “in Wisconsin,” and that the 13.92% of respondents who answered “no” were
deemed to have received a ballot without requesting one – even though a Wisconsin voter who

at https://www.washingtonpost.com/politics/trump-voter-integrity-fund/2020/11/15/89986f1c-25fe11eb-952e-0c475972cfc0 story.html (last visited Dec. 6, 2020); http://twitter.com/MattBraynard.
7

Braynard claims this 96,771 ballot figure was derived from a report he obtained from a firm called
“L2 Political.” (Amend. Cmplt. Exh. 3 at 5-6) Braynard does not provide the report itself, the date of
the report, the underlying data from the State that supposedly served as the basis for the report, or any
other information that would allow for validation of his double-hearsay account of what this data
purportedly shows. Accordingly, there is no basis for relying on the 96,771 ballot figure that serves as
the basis for his calculations.

1567

24
Case 2:20-cv-01771-PP Filed 12/07/20 Page 25 of 30 Document 59

requested an absentee ballot while attending school out-of-state or living on a military base abroad
would have properly answered “no” to the question as posed. (Id. at 6) Briggs labels this alleged
problem Error #1. (Id. at 1) From the results of this fatally poorly drafted survey, Briggs even more
inexplicably leaps to the conclusion that 16,316-19,273, or 31% of the alleged “unreturned
absentee ballots” were “troublesome,” (id.) which Plaintiff argues supports overturning the results
of the election. (Amend. Cmplt. ¶¶107, 119)
Briggs’s so-called Error #2, upon which he asserts that somewhere between 13,991 and
16,757 votes of Wisconsinites should be invalidated, bears no closer relationship to plausibility.
(Amend. Cmplt. Exh 2 at 1-2) These figures are based on respondents to Braynard’s surveys who
were listed as having an “unreturned absentee ballot,” but who responded “yes” when asked
whether they had mailed their ballot. In other words, these are absentee ballots that were allegedly
returned but not counted. Neither Briggs nor Braynard does anything to account for various reasons
a person may have answered “yes”—perhaps they answered “yes” because they mailed back their
ballot, but did not do so in a timely fashion such that it was not properly counted; perhaps they
mailed back their ballot, but it was not properly completed or cured, such that it was not counted;
or conceivably, some of the respondents to the survey conducted on November 15-17, 2020, two
weeks after the election, lied or misremembered. Nor does Briggs even suggest there is any reason
to believe these ballots predominantly favored Trump rather than Biden. Yet, Plaintiff implausibly
asserts this “analysis” serves as a basis for overturning the election.
Plaintiff’s assertion that the Court could plausibly conclude that 6,9668 absentee votes were
“illegal” based on voters having moved out-of-state prior to Election Day or having registered to

8

Further highlighting the liberties Plaintiff has taken with the alleged expert opinions is the fact
that Braynard concluded, after having removed duplicates, that 6,848 individuals lost Wisconsin

1568

25
Case 2:20-cv-01771-PP Filed 12/07/20 Page 26 of 30 Document 59

vote in another state after having registered in Wisconsin is equally ridiculous. (Amend. Cmplt.
¶51) This assertion is based entirely on Braynard’s questionable analysis. To come to his
conclusions, Braynard compared the National Change of Address database for the day after
Election Day with Wisconsin’s database for all absentee or early voters, and alleges that anyone
who appears to have moved as of the day after Election Day was ineligible to vote. (Amend. Cmplt.
Exh. 3 at 9) However, Braynard fails to account for the fact that a person may file a change of
address for a number of reasons, yet retain residence for voting purposes in his or her home state.
For example, college students may file a change of address in order to receive mail while living
out of state on a university campus without establishing residency for voting purposes in that state.
Moreover, neither Plaintiff nor Braynard provides a single, specific example of a person illegally
voting in Wisconsin after having moved out-of-state. Although Plaintiff is entitled to a
presumption in favor of his allegations, that presumption does not extend so far that the Court must
assume an expert’s opinions are correct, or even admissible, and there are not facts here that, even
if assumed true, support a reasonable inference that Plaintiff’s constitutional rights were violated
in the Wisconsin general election.
C.

Plaintiff’s allegations regarding “statistical impossibilities” provide no basis
for overturning the election results.

Plaintiff further asks this Court to cast aside 181,440 votes, and thereby reverse the results
of the election as determined by the will of nearly 3.3 million Wisconsin voters, based on
“statistically significant” results favoring President-Elect Biden in unspecified counties using
Dominion Voting Machines. (Amend. Cmplt. ¶¶52-58) Notably, Plaintiff bases this assertion on
the purported statistical analysis of an anonymous “Affiant.” (Id. ¶52) But, despite this analysis

residency and cast illegal ballots (Exh. 3 at 9), yet Plaintiff asserts that 6,966 such votes were cast and
should be invalidated. Amend. Cmplt. ¶51.

1569

26
Case 2:20-cv-01771-PP Filed 12/07/20 Page 27 of 30 Document 59

styled as expert opinion, Plaintiff does not allege any facts to support what is, at best, an implied
allegation that vote totals in Wisconsin counties using Dominion Voting Machines were modified
in favor of President-Elect Biden. Rather, Plaintiff provides that “[t]he results of the analysis and
the pattern seen in the included graph strongly suggest a systemic, system-wide algorithm was
enacted by an outside agent, causing the results of Wisconsin’s vote tallies to be inflated by
somewhere between three and five point six percentage points.” (Id. ¶58 (emphasis added))
That a questionable statistical analysis suggests that vote tallies may have been tampered
with is a far cry from evidence, or even an allegation, that vote tallies were in fact modified, and
such a suggestion certainly does not warrant overturning the results of an election in which 3.3
million Wisconsinites participated. Again, the Court is required to presume Plaintiff’s allegations
are true and to draw reasonable inferences in his favor, but the Court is under no obligation to draw
unreasonable inferences. “[W]hen considering the viability of a claim in the face of a Rule 12(b)(6)
challenge, [the Court] may reject sheer speculation, bald assertions, and unsupported conclusory
statements.” Taha, 947 F.3d at 469 (citing Yeftich v. Navistar, Inc., 722 F.3d 911, 915 (7th Cir.
2013); Iqbal, 556 U.S. at 678, 681; Twombly, 550 U.S. at 555).
D.

Plaintiff’s allegations regarding alleged violations of Wisconsin Elections laws
provide no basis for overturning the election results.

Plaintiff also alleges that Defendants violated Wisconsin elections law by providing
guidance to municipal clerks that conflicts with state law. (Amend. Cmplt. ¶¶37-45) Even if the
Court accepts as true that election laws were violated, which they were not, Plaintiff fails to allege
with any specificity that even one vote was illegally cast and counted. Rather, Plaintiff simply
concludes that illegal ballots must have been cast and counted because the allegedly illegal
guidance was issued. Plaintiff does allege that 96,437 absentee ballots were illegally cast by

1570

27
Case 2:20-cv-01771-PP Filed 12/07/20 Page 28 of 30 Document 59

individuals who did not qualify for indefinitely confined statutes under state law, but Plaintiff fails
to cite a source for this conclusory allegation. 9
Plaintiff alleges that the entire Wisconsin general election was “so riddled with fraud,
illegality, and statistical impossibility,” for the purpose of “manipulating the vote count to
manufacture an election of Joe Biden as President of the United States,” that the results of the
election must be set aside entirely. (Amend. Cmplt. ¶¶2, 5) But, to plead fraud, Plaintiff is required
to “state with particularity the circumstances constituting fraud.” Fed. R. Civ. P. 9(b). A complaint
alleging fraud “must describe the ‘who, what, when, where, and how’ of the fraud.” Pirelli, 631
F.3d at 441 (quoting Lusby, 570 F.3d at 854). Ostensibly, this alleged fraudulent course of conduct
was perpetrated through the combination of the use of allegedly vulnerable Dominion Voting
Machines and the issuance of guidance regarding absentee ballots to municipal clerks. However,
the use of Dominion Voting Machines and the guidance that Plaintiff cites as illegal and fraudulent
have been in use for multiple elections, and in some cases, for years. Plaintiff fails to articulate
with any modicum of particularity how these longstanding practices only now demonstrate fraud.
And to the extent that such speculation constitutes the “how,” which it does not, Plaintiff fails to
answer with particularity the requisite who, what, when, and where. As discussed above, because
Plaintiff clearly fails to state a claim for which relief can be granted under Fed. R. Civ. P. 12(b)(6),
he most certainly fails to state a claim for fraud with the particularity required under Fed. R. Civ.
P. 9(b).

9

Presumably, Plaintiff pulls this number from Braynard’s report, but his conclusion is based on
speculative social media research and faulty statistical extrapolation. (Amend. Cmplt. Exh. 3 at 9-10)
Like Plaintiff, Braynard presents no evidence that anyone who was self-identified as indefinitely
confined illegally claimed that status to obtain and cast an absentee ballot.

1571

28
Case 2:20-cv-01771-PP Filed 12/07/20 Page 29 of 30 Document 59

CONCLUSION
For the reasons above, Defendant Governor Tony Evers’s Motion to Dismiss (Dkt. 51)
should be adjudicated before the Court considers Plaintiff’s request for injunctive relief, and the
Governor’s Motion should be granted.
Dated: December 7, 2020

Respectfully submitted,
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Post Office Box 1784
Madison, WI 53701-1784
Telephone: 608-256-0226
jmandell@staffordlaw.com
rsnyder@staffordlaw.com
rmanthe@staffordlaw.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org
Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers

1572

29
Case 2:20-cv-01771-PP Filed 12/07/20 Page 30 of 30 Document 59

EXHIBIT 1

1573

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 3 Document 59-1

Whitaker v. Kenosha Unified School District No. 1 Board..., Not Reported in Fed....
2016 WL 8846573

2016 WL 8846573
Only the Westlaw citation is currently available.
United States District Court, E.D. Wisconsin.

Ashton WHITAKER, By his mother and
next friend, Melissa Whitaker, Plaintiff,
v.
KENOSHA UNIFIED SCHOOL DISTRICT
NO. 1 BOARD OF EDUCATION and
Sue Savaglio–Jarvis, Defendants.
Case No. 16–cv–943–pp
|
Signed 10/03/2016
Attorneys and Law Firms
Alison Pennington, Ilona Turner, Sasha J. Buchert, Shawn
Thomas Meerkamper, Transgender Law Center, Oakland,
CA, Michael G. Allen, Sasha Samberg–Champion, Robert
D Friedman, Joseph J. Wardenski, Relman Dane & Colfax
PLLC, Washington, DC, Robert Theine Pledl, McNally
Peterson SC, Milwaukee, WI, for Plaintiff.
Aaron J. Graf, Jonathan E. Sacks, Ronald S. Stadler, Mallery
& Zimmerman SC, Milwaukee, WI, for Defendants.

ORDER DENYING DEFENDANTS’ CIVIL L.R.
7(h) EXPEDITED, NON–DISPOSITIVE MOTION TO
STAY PRELIMINARY INJUNCTION (DKT. NO. 33)
PENDING APPEAL (DKT. NO. 44)
PAMELA PEPPER, United States District Judge
*1 The plaintiff filed his complaint on July 19, 2016,
Dkt. No. 1, and less than a month later, filed a motion for
preliminary injunction, Dkt. No. 10. A day after the plaintiff
filed the motion for preliminary injunction, the defendants
filed a motion to dismiss the complaint. Dkt. No. 15. A few
days later, they filed a brief in opposition to the motion for
preliminary injunction. Dkt. No. 17.
On September 6, 2016, the court heard oral argument on the
motion to dismiss. Dkt. No. 26. On September 19, 2016, the
court issued an oral ruling denying the defendants’ motion
to dismiss. Dkt. No. 28. The court scheduled a hearing on

1574

the motion for preliminary injunction for the following day,
September 20, 2016. Id. at 9.
On September 20, 2016, the parties presented their oral
arguments on the motion for preliminary injunction. Dkt.
No. 31. In considering the question of whether the plaintiffs
had a likelihood of success on the merits, the court relied
in good part on its decision from the previous day denying
the motion to dismiss.1 At the conclusion of the hearing, the
court granted in part2 the plaintiff's motion for a preliminary
injunction, and enjoined the defendants from prohibiting the
plaintiff from using the boys’ restrooms at his high school;
from taking punitive action against the plaintiff for using the
boys’ restrooms; and from taking any action to monitor his
restroom usage. Dkt. No. 31 at 1. Counsel for the defendants
asked the court to stay the injunction until October 1, 2016, to
allow the defendants time to appeal. Id. The court declined.
Id. at 2. The defendants also asked the court to require the
plaintiff to post a bond; the court took that request under
advisement. Id.
*2 On September 22, 2016, the court issued its written
order granting in part the motion for preliminary injunction.
Dkt. No. 33. In particular, the court weighed the balance of
harms, and concluded that the harms suffered by the plaintiff
if the court did not grant the injunctive relief outweighed any
potential harms suffered by the defendant if the court were to
impose the injunction. Id. at 13–15. The court also found that
the issuance of the injunction would not negatively impact the
public interest. Id. at 15. Finally, the court declined to require
the plaintiff to post a bond. Id. at 15–17.
The defendants again have asked the court to stay the
preliminary injunction. Dkt. No. 44. The defendants point
out that they have appealed the court's decision to the
Seventh Circuit (both appealed as of right regarding the order
granting the motion for preliminary injunction, and sought
interlocutory appeal regarding the court's denial of the motion
to dismiss the complaint). Id. at 2. They argue, as they did in
their motion to dismiss, that the Seventh Circuit's decision on
Ulane v. Eastern Airlines, Inc., 742 F.2d 1081) (7th Circuit)
mandates a ruling in their favor on the Title IX issue (despite
conceding that the court has not decided the precise issue
in question in this case). Id. at 1–2. They argue that they
will suffer irreparable harm from the injunction, because the
injunction “threatens the constitutionally protected privacy
interest of the approximately 22,000 students in the school
district.” Id. at 2–3. They argue that the plaintiff will not
be harmed by staying the injunction, because a stay would

Case
Filedto12/07/20
2 of 3 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-1

1

Whitaker v. Kenosha Unified School District No. 1 Board..., Not Reported in Fed....
2016 WL 8846573

maintain the status quo and would not worsen the plaintiff's
health. Id. at 3. Finally, they argue that the public interest
would be served by a stay of the injunction, because it will
prevent the school district's students and parents from being
“subjected to an injunction that perpetuates a policy that the
federal government is unable to enforce,” citing State of Texas
v. United States, Case No. 16–cv–54, 2016 WL 4426495
(N.D. Tex., August 21, 2016).3
As the defendants state in their motion, the factors a movant
must satisfy to obtain a stay pending appeal are similar to
the factors a movant must satisfy to obtain injunction relief.
Hinrichs v. Bosma, 440 F.3d 393, 396 (7th Cir. 2006) (citing
Hilton v. Braunskill, 481 U.S. 770, 776 (1987)). The moving
party must demonstrate that “1) it has a reasonable likelihood
of success on the merits; 2) no adequate remedy at law
exists; 3) it will suffer irreparable harm if it is denied; 4) the
irreparable harm the party will suffer without relief is greater
than the harm the opposing party will suffer if the stay is
granted; and 5) the stay will be in the public interest.” Id.

(citing Kiel v. City of Kenosha, 236 F.3d 814, 815–16 (7th
Cir. 2000)).
Every argument which the defendants raise in their motion for
stay pending appeal was raised in their objection to the motion
for preliminary injunction, and the parties argued every one
of those issues at the September 20, 2016 hearing. The court
found in favor of the plaintiff, and against the defendants, on
each factor. The defendants give no explanation for why the
court should find in their favor now, when eight days prior to
their filing this motion to stay, the court found against them
on exactly the same issues they raise here.
*3 The court DENIES the defendants’ motion Civil L.R.
7(h) Expedited, Non–Dispositive Motion to Stay Preliminary
Injunction. Dkt. No. 44.
All Citations
Not Reported in Fed. Supp., 2016 WL 8846573

Footnotes

1

2

3

There is a bit of a procedural morass surrounding that decision. Counsel for the defendants informed the court at the end
of the hearing that he would be submitting a proposed order, denying his motion to dismiss but containing the necessary
findings for certification of an interlocutory appeal. He did not make any argument in support of that proposal; the court did
not elicit any, nor did it ask for the plaintiff's position. The court entered the order, with the interlocutory appeal certification
language, on September 21. Dkt. No. 29. The next day, the plaintiff filed a motion asking the court to reconsider including
the interlocutory appeal certification language. Dkt. No. 30. On September 23, 2016, before the court ruled on that motion,
the defendants filed a notice of appeal with the Seventh Circuit, appealing both the order denying the motion to dismiss
and the order granting the preliminary injunction (an order the court had issued on September 22, 2016, Dkt. No. 33). Dkt.
No. 34. On September 25, 2016, the court issued an order granting the plaintiff's motion to reconsider, Dkt. No. 36, and
entered an amended order denying the motion to dismiss but removing the interlocutory appeal certification language,
Dkt. No. 35. The next day, the Seventh Circuit ordered the plaintiff to respond to the defendants’ request for interlocutory
appeal by October 11, 2016.
The plaintiff's complaint requests other relief: it asks the court to prohibit the defendants from referring to the plaintiff by
his birth name, and from using female pronouns to identify him; to require the school to allow him to room with other boys
on school trips; to prohibit the school from requiring the plaintiff to wear identifying markers, such as a colored wristband;
and other relief. The court did not grant injunctive relief on those requests—some were not ripe, and others speculated
actions that had not yet occurred.
The defendants’ statement that Texas district court's injunction prohibits the federal government from enforcing its policies
at all is overbroad. The Texas court's order prohibits the federal government from enforcing certain Department of
Education policies (relevant to this case) against the plaintiffs in that case “until the Court rules on the merits of this claim,
or until further direction from the Fifth Circuit Court of Appeals.” Texas v. United States, 2016 WL 4426495 at 17.

End of Document

1575

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
3 of 3 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-1

2

EXHIBIT 2

1576 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 20 Document 59-2

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

2020 WL 6686120
Only the Westlaw citation is currently available.
United States Court of Appeals, Third Circuit.

Jim BOGNET, Donald K. Miller,
Debra Miller, Alan Clark,
Jennifer Clark, Appellants
v.
SECRETARY COMMONWEALTH OF
PENNSYLVANIA; Adams County Board
of Elections; Allegheny County Board
of Elections; Armstrong County Board
of Elections; Beaver County Board
of Elections; Bedford County Board
of Elections; Berks County Board of
Elections; Blair County Board of Elections;
Bradford County Board of Elections;
Bucks County Board of Elections; Butler
County Board of Elections; Cambria
County Board of Elections; Cameron
County Board of Elections; Carbon County
Board of Elections; Centre County Board
of Elections; Chester County Board
of Elections; Clarion County Board of
Elections; Clearfield County Board of
Elections; Clinton County Board of
Elections; Columbia County Board of
Elections; Crawford County Board of
Elections; Cumberland County Board
of Elections; Dauphin County Board of
Elections; Delaware County Board of
Elections; Elk County Board of Elections;
Erie County Board of Elections; Fayette
County Board of Elections; Forest County
Board of Elections; Franklin County
Board of Elections; Fulton County Board
of Elections; Greene County Board of
Elections; Huntingdon County Board

of Elections; Indiana County Board
of Elections; Jefferson County Board
of Elections; Juniata County Board of
Elections; Lackawanna County Board
of Elections; Lancaster County Board
of Elections; Lawrence County Board
of Elections; Lebanon County Board
of Elections; Lehigh County Board of
Elections; Luzerne County Board of
Elections; Lycoming County Board
of Elections; Mckean County Board
of Elections; Mercer County Board
of Elections; Mifflin County Board of
Elections; Monroe County Board of
Elections; Montgomery County Board
of Elections; Montour County Board
of Elections; Northampton County
Board of Elections; Northumberland
County Board of Elections; Perry County
Board of Elections; Philadelphia County
Board of Elections; Pike County Board
of Elections; Potter County Board of
Elections; Schuylkill County Board
of Elections; Snyder County Board of
Elections; Somerset County Board of
Elections; Sullivan County Board of
Elections; Susquehanna County Board of
Elections; Tioga County Board of Elections;
Union County Board of Elections; Venango
County Board of Elections; Warren County
Board of Elections; Washington County
Board of Elections; Wayne County Board
of Elections; Westmoreland County Board
of Elections; Wyoming County Board of
Elections; York County Board of Elections
Democratic National
Committee, Intervenor

Filedto12/07/20
2 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1577 Case

1

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

No. 20-3214
|
Submitted Pursuant to Third Circuit
L.A.R. 34.1(a) November 9, 2020
|
(Filed: November 13, 2020)
Synopsis
Background: Voters and congressional candidate brought
action against Secretary of Commonwealth of Pennsylvania
and county boards of elections, seeking to enjoin the counting
of mail-in ballots received during the three-day extension
of the ballot-receipt deadline ordered by the Pennsylvania
Supreme Court, and seeking a declaration that the extension
period and presumption of timeliness was unconstitutional.
The United States District Court for the Western District
of Pennsylvania, Kim R. Gibson, Senior District Judge,
2020 WL 6323121, denied voters' and candidate's motion
for a temporary restraining order (TRO) and preliminary
injunction. Voters and candidate appealed.

Holdings: The Court of Appeals, Smith, Chief Judge, held
that:
the District Court's order was immediately appealable;
voters and candidate lacked standing to bring action alleging
violation of Constitution's Elections Clause and Electors
Clause;
voters lacked concrete injury for their alleged harm of vote
dilution, and thus voters did not have standing for such claim;
voters lacked particularized injury for their alleged harm of
vote dilution, and thus voters did not have standing for such
claim;
voters failed to allege legally cognizable “preferred class,” for
purposes of standing to claim equal protection violation;
alleged harm from presumption of timeliness was
hypothetical or conjectural, and thus voters did not have
standing to challenge presumption; and
voters and candidate were not entitled to receive injunction
so close to election.

Affirmed.
On Appeal from the United States District Court for the
Western District of Pennsylvania, District Court No. 3-20cv-00215, District Judge: Honorable Kim. R. Gibson
Attorneys and Law Firms
Brian W. Barnes, Peter A. Patterson, David H. Thompson,
Cooper & Kirk, 1523 New Hampshire Avenue, N.W.,
Washington, D.C. 20036, Counsel for Appellants
Mark A. Aronchick, Michele D. Hangley, Robert A. Wiygul,
Hangley Aronchick Segal Pudlin & Schiller, One Logan
Square, 18th & Cherry Streets, 27th Floor, Philadelphia, PA
19103, J. Bart DeLone, Sean A. Kirkpatrick, Keli M. Neary,
Office of Attorney General of Pennsylvania, Strawberry
Square, Harrisburg, PA 17120, Dimitrios Mavroudis, Jessica
Rickabaugh, Joe H. Tucker, Jr., Tucker Law Group, Ten Penn
Center, 1801 Market Street, Suite 2500, Philadelphia, PA
19103, Counsel Secretary Commonwealth of Pennsylvania
Elizabeth A. Dupuis, Molly E. Meachem, Babst Calland, 330
Innovation Boulevard, Suite 302, State College, PA 16803,
Counsel for Armstrong, Bedford, Blair, Centre Columbia,
Dauphin, Fayette, Huntingdon, Indiana, Lackawanna,
Lawrence, Northumberland, Venango, and York County
Boards of Elections
Christine D. Steere, Deasey Mahoney & Valentini, 103
Chesley Drive, Lafayette Building, Suite 101, Media, PA
19063, Counsel for Berks County Board of Elections
Edward D. Rogers, Elizabeth V. Wingfield, Ballard Spahr,
1735 Market Street, 51st Floor, Philadelphia, PA 19103,
Counsel for Delaware County Board of Elections
Stephen B. Edwards, Frank J. Lavery, Jr., Andrew W.
Norfleet, Lavery Law, 225 Market Street, Suite 304, P.O. Box
1245, Harrisburg, PA 17108, Counsel for Franklin and Perry
County Boards of Elections
Thomas R. Shaffer, Glassmire & Shaffer Law Offices, 5 East
Third Street, P.O. Box 509, Coudersport, PA 16915, Counsel
for Potter County Board of Elections
Marc E. Elias, Uzoma Nkwonta, Courtney A. Elgart,
Perkins Coie, 700 13th Street, N.W. Suite 800, Washington,
D.C. 20005, Counsel for Intervenor Democratic National
Committee

Filedto12/07/20
3 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1578 Case

2

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Before: SMITH, Chief Judge, SHWARTZ and SCIRICA,
Circuit Judges

OPINION OF THE COURT
SMITH, Chief Judge.
*1 A share in the sovereignty of the state, which is
exercised by the citizens at large, in voting at elections is
one of the most important rights of the subject, and in a
republic ought to stand foremost in the estimation of the
law.—Alexander Hamilton1
The year 2020 has brought the country unprecedented
challenges. The COVID-19 pandemic, which began early
this year and continues today, has caused immense loss and
vast disruption. As this is a presidential election year, the
pandemic has also presented unique challenges regarding
where and how citizens shall vote, as well as when and how
their ballots shall be tabulated. The appeal on which we now
rule stems from the disruption COVID-19 has wrought on
the national elections. We reach our decision, detailed below,
having carefully considered the full breadth of statutory
law and constitutional authority applicable to this unique
dispute over Pennsylvania election law. And we do so with
commitment to a proposition indisputable in our democratic
process: that the lawfully cast vote of every citizen must
count.

I. Background & Procedural History
A. The Elections and Presidential Electors Clause
The U.S. Constitution delegates to state “Legislature[s]”
the authority to regulate the “Times, Places and Manner of
holding Elections for Senators and Representatives,” subject
to Congress's ability to “make or alter such Regulations.”
U.S. Const. art. I, § 4, cl. 1. This provision is known as the
“Elections Clause.” The Elections Clause effectively gives
state governments the “default” authority to regulate the
mechanics of federal elections, Foster v. Love, 522 U.S. 67,
69, 118 S.Ct. 464, 139 L.Ed.2d 369 (1997), with Congress
retaining “exclusive control” to “make or alter” any state's
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S.Ct.
1198, 90 L.Ed. 1432 (1946). Congress has not often wielded
this power but, “[w]hen exercised, the action of Congress, so
far as it extends and conflicts with the regulations of the State,
necessarily supersedes them.” Ex Parte Siebold, 100 U.S.

371, 384, 399, 25 L.Ed. 717 (1879) (“[T]he Constitution and
constitutional laws of the [United States] are ... the supreme
law of the land; and, when they conflict with the laws of the
States, they are of paramount authority and obligation.”). By
statute, Congress has set “[t]he Tuesday next after the 1st
Monday in November, in every even numbered year,” as the
day for the election. 2 U.S.C. § 7.
Much like the Elections Clause, the “Electors Clause” of the
U.S. Constitution provides that “[e]ach State shall appoint,
in such Manner as the Legislature thereof may direct, a
Number of [Presidential] Electors.” U.S. Const. art. II, §
1, cl. 2. Congress can “determine the Time of chusing the
Electors, and the Day on which they shall give their Votes;
which Day shall be the same throughout the United States.”
U.S. Const. art. II, § 1, cl. 4. Congress has set the time
for appointing electors as “the Tuesday next after the first
Monday in November, in every fourth year succeeding every
election of a President and Vice President.” 3 U.S.C. § 1.
*2 This year, both federal statutes dictate that the day for
the election was to fall on Tuesday, November 3 (“Election
Day”).
B. Pennsylvania's Election Code
In keeping with the Constitution's otherwise broad delegation
of authority to states to regulate the times, places, and manner
of holding federal elections, the Pennsylvania General
Assembly has enacted a comprehensive elections code. In
2019, the General Assembly passed Act 77, which (among
other things) established “no-excuse” absentee voting in
Pennsylvania2: all eligible voters in Pennsylvania may vote
by mail without the need to show their absence from their
voting district on the day of the election. 25 Pa. Stat. and Cons.
Stat. §§ 3150.11–3150.17. Under Act 77, “[a]pplications for
mail-in ballots shall be processed if received not later than
five o'clock P.M. of the first Tuesday prior to the day of
any primary or election.” Id. § 3150.12a(a). After Act 77, “a
completed absentee [or mail-in] ballot must be received in
the office of the county board of elections no later than eight
o'clock P.M. on the day of the primary or election” for that
vote to count. Id. §§ 3146.6(c), 3150.16(c).
C. The Pennsylvania Supreme Court Decision
Soon after Act 77's passage, Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and
several Republican congressional candidates and voters
brought suit against Kathy Boockvar, Secretary of the

Filedto12/07/20
4 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1579 Case

3

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Commonwealth of Pennsylvania, and all of Pennsylvania's
county boards of elections. That suit, filed in the Western
District of Pennsylvania, alleged that Act 77's “no-excuse”
mail-in voting regime violated both the federal and
Pennsylvania constitutions. Donald J. Trump for Pres., Inc. v.
Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––, 2020
WL 4920952, at *1 (W.D. Pa. Aug. 23, 2020). Meanwhile,
the Pennsylvania Democratic Party and several Democratic
elected officials and congressional candidates filed suit in
Pennsylvania's Commonwealth Court, seeking declaratory
and injunctive relief related to statutory-interpretation issues
involving Act 77 and the Pennsylvania Election Code. See
Pa. Democratic Party v. Boockvar, ––– Pa. ––––, 238 A.3d
345, 352 (2020). Secretary Boockvar asked the Pennsylvania
Supreme Court to exercise extraordinary jurisdiction to allow
it to immediately consider the case, and her petition was
granted without objection. Id. at 354–55.
Pending resolution of the Pennsylvania Supreme Court case,
Secretary Boockvar requested that the Western District of
Pennsylvania stay the federal case. Trump for Pres. v.
Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at *1.
The District Court obliged and concluded that it would abstain
under Railroad Commission of Texas v. Pullman Co., 312 U.S.
496, 61 S.Ct. 643, 85 L.Ed. 971 (1941). See Trump for Pres.
v. Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at
*21. The RNC then filed a motion for limited preliminary
injunctive relief asking that all mailed ballots be segregated,
but the District Court denied the motion, finding that the
plaintiffs’ harm had “not yet materialized in any actualized or
imminent way.” Donald J. Trump for Pres., Inc. v. Boockvar,
No. 2:20-cv-966, 2020 WL 5407748, at *1 (W.D. Pa. Sept.
8, 2020).
*3 With the federal case stayed, the state court matter
proceeded. The Pennsylvania Democratic Party argued that
a combination of the COVID-19 pandemic and U.S. Postal
Service (“USPS”) mail-delivery delays made it difficult for
absentee voters to timely return their ballots in the June 2020
Pennsylvania primary election. Pa. Democratic Party, 238
A.3d at 362. The Pennsylvania Democratic Party claimed
that this voter disenfranchisement violated the Pennsylvania
Constitution's Free and Equal Elections Clause, art I., § 5,3
and sought, among other things, a weeklong extension of the
deadline for receipt of ballots cast by Election Day in the
upcoming general election—the same deadline for the receipt
of ballots cast by servicemembers residing overseas. Id. at
353–54. Secretary Boockvar originally opposed the extension
deadline; she changed her position after receiving a letter

from USPS General Counsel which stated that Pennsylvania's
ballot deadlines were “incongruous with the Postal Service's
delivery standards,” and that to ensure that a ballot in
Pennsylvania would be received by 8:00 P.M. on Election
Day, the voter would need to mail it a full week in advance,
by October 27, which was also the deadline to apply for a
mail-in ballot. Id. at 365–66; 25 Pa. Stat. and Cons. Stat. §
3150.12a(a). Secretary Boockvar accordingly recommended
a three-day extension to the received-by deadline. Pa.
Democratic Party, 238 A.3d at 364–65.
In a September 17, 2020 decision, the Pennsylvania Supreme
Court concluded that USPS's existing delivery standards
could not meet the timeline built into the Election Code and
that circumstances beyond voters’ control should not lead to
their disenfranchisement. Pa. Democratic Party, 238 A.3d
at 371. The Court accordingly held that the Pennsylvania
Constitution's Free and Equal Elections Clause required a
three-day extension of the ballot-receipt deadline for the
November 3 general election. Id. at 371, 386–87. All ballots
postmarked by 8:00 P.M. on Election Day and received
by 5:00 P.M. on the Friday after Election Day, November
6, would be considered timely and counted (“Deadline
Extension”). Id. at 386–87. Ballots postmarked or signed
after Election Day, November 3, would be rejected. Id. If the
postmark on a ballot received before the November 6 deadline
was missing or illegible, the ballot would be presumed to be
timely unless “a preponderance of the evidence demonstrates
that it was mailed after Election Day” (“Presumption of
Timeliness”). Id. Shortly after the ruling, Pennsylvania voters
were notified of the Deadline Extension and Presumption of
Timeliness.
D. Appeal to the U.S. Supreme Court, and This
Litigation
The Republican Party of Pennsylvania and several
intervenors, including the President pro tempore of the
Pennsylvania Senate, sought to challenge in the Supreme
Court of the United States the constitutionality of the
Pennsylvania Supreme Court's ruling. Because the November
election date was fast approaching, they filed an emergency
application for a stay of the Pennsylvania Supreme Court's
order pending review on the merits. The U.S. Supreme
Court denied the emergency stay request in a 4-4 decision.
Republican Party of Pa. v. Boockvar, No. 20A54, 592
U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL
6128193 (Oct. 19, 2020); Scarnati v. Boockvar, No. 20A53,
592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020
WL 6128194 (Oct. 19, 2020). After denial of the stay, the

Filedto12/07/20
5 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1580 Case

4

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

petitioners moved for expedited consideration of their petition
for certiorari. In denying that motion, Justice Alito noted that,
per the Pennsylvania Attorney General, all county boards
of elections would segregate ballots received during the
Deadline Extension period from those received by 8:00 P.M.
on Election Day. Republican Party of Pa. v. Boockvar, No.
20-542, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d
––––, 2020 WL 6304626, at *2 (Oct. 28, 2020) (Alito, J.,
statement). Justice Alito later issued an order requiring that all
county boards of elections segregate such ballots and count
them separately. Republican Party of Pa. v. Boockvar, No.
20A84, ––– U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6536912 (Mem.) (U.S. Nov. 6, 2020) (Alito, J.).
*4 In the meantime, on October 22, 2020, three days after
the U.S. Supreme Court declined to stay the Pennsylvania
Supreme Court's order, Plaintiffs herein filed this suit in
the Western District of Pennsylvania. Plaintiffs are four
registered voters from Somerset County, Pennsylvania, who
planned to vote in person on Election Day (“Voter Plaintiffs”)
and Pennsylvania congressional candidate Jim Bognet.
Defendants are Secretary Boockvar and each Pennsylvania
county's board of elections.
Bognet, the congressional candidate, claimed that the
Deadline Extension and Presumption of Timeliness “allow[ ]
County Boards of Elections to accept votes ... that would
otherwise be unlawful” and “undermine[ ] his right to run in
an election where Congress has paramount authority to set
the ‘times, places, and manner’ ” of Election Day. Bognet
v. Boockvar, No. 3:20-cv-215, 2020 WL 6323121, at *2
(W.D. Pa. Oct. 28, 2020). The Voter Plaintiffs alleged that by
voting in person, they had to comply with the single, uniform
federal Election Day deadline, whereas mail-in voters could
submit votes any time before 5:00 P.M. on November 6.
Id. Thus, they alleged, the Pennsylvania Supreme Court
treated them in an arbitrary and disparate way by elevating
mail-in voters to a “preferred class of voters” in violation
of the U.S. Constitution's Equal Protection Clause and the
single, uniform, federal Election Day set by Congress. Id. The
Voter Plaintiffs also asserted that counting ballots received
after Election Day during the Deadline Extension period
would unlawfully dilute their votes in violation of the Equal
Protection Clause. Id.
All Plaintiffs sought to enjoin Defendants from counting
ballots received during the Deadline Extension period. Id.
They also sought a declaration that the Deadline Extension
and Presumption of Timeliness are unconstitutional under

the Elections Clause and the Electors Clause as well as the
Equal Protection Clause. Id. Because Plaintiffs filed their suit
less than two weeks before Election Day, they moved for a
temporary restraining order (“TRO”), expedited hearing, and
preliminary injunction. Id.
The District Court commendably accommodated Plaintiffs’
request for an expedited hearing, then expeditiously issued
a thoughtful memorandum order on October 28, denying
the motion for a TRO and preliminary injunction. Id. at *7.
The District Court held that Bognet lacked standing because
his claims were too speculative and not redressable. Id. at
*3. Similarly, the District Court concluded that the Voter
Plaintiffs lacked standing to bring their Equal Protection
voter dilution claim because they alleged only a generalized
grievance. Id. at *5.
At the same time, the District Court held that the Voter
Plaintiffs had standing to pursue their Equal Protection
arbitrary-and-disparate-treatment claim. But it found that the
Deadline Extension did not engender arbitrary and disparate
treatment because that provision did not extend the period
for mail-in voters to actually cast their ballots; rather, the
extension only directed that the timely cast ballots of mail-in
voters be counted. Id. As to the Presumption of Timeliness,
the District Court held that the Voter Plaintiffs were likely
to succeed on the merits of their arbitrary-and-disparatetreatment challenge. Id. at *6. Still, the District Court declined
to grant a TRO because the U.S. Supreme Court “has
repeatedly emphasized that ... federal courts should ordinarily
not alter the election rules on the eve of an election.” Id. at
*7 (citing Purcell v. Gonzalez, 549 U.S. 1, 127 S.Ct. 5, 166
L.Ed.2d 1 (2006) (per curiam)). The District Court concluded
that with “less than two weeks before the election. ...
[g]ranting the relief Plaintiffs seek would result in significant
voter confusion; precisely the kind of confusion that Purcell
seeks to avoid.” Id.
*5 Plaintiffs appealed the denial of their motion for a TRO
and preliminary injunction to this Court on October 29, less
than a week before Election Day. Plaintiffs requested an
expedited briefing schedule: specifically, their opening brief
would be due on October 30 and the response briefs on
November 2. Notably, Plaintiffs sought to file a reply brief
on November 3—Election Day. Appellants’ Emergency Mot.
for Expedited Briefing, Dkt. No. 17. Defendants opposed
the expedited briefing schedule, arguing that Plaintiffs’ own
delay had caused the case to reach this Court mere days
before the election. Sec'y Boockvar's Opp. to Appellants’

Filedto12/07/20
6 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1581 Case

5

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Emergency Mot. for Expedited Briefing, Dkt. No. 33.
Defendants also contended that Plaintiffs sought to punish
voters by invalidating the very rules mail-in voters had relied
on when they cast their ballots. Defendants asked us to deny
the motion for expedited briefing and offered to supply us
with the actual numbers of mail-in ballots received during
the Deadline Extension period together with an approximate
count of how many of those mail-in ballots lacked legible
postmarks. Id.
Even had we granted Plaintiffs’ motion for expedited briefing,
the schedule they proposed would have effectively foreclosed
us from ruling on this appeal before Election Day. So
we denied Plaintiffs’ motion and instead ordered that their
opening brief be filed by November 6. Order, No. 20-3214,
Oct. 30, 2020, Dkt. No. 37. We directed Defendants to file
response briefs by November 9, forgoing receipt of a reply
4

brief. Id. With the matter now fully briefed, we consider
Plaintiffs’ appeal of the District Court's denial of a TRO and
preliminary injunction.

II. Standard of Review
The District Court exercised jurisdiction under 28 U.S.C. §
1331. We exercise jurisdiction under § 1292(a)(1).
Ordinarily, an order denying a TRO is not immediately
appealable. Hope v. Warden York Cnty. Prison, 956 F.3d 156,
159 (3d Cir. 2020). Here, although Bognet and the Voter
Plaintiffs styled their motion as an Emergency Motion for
a TRO and Preliminary Injunction, see Bognet v. Boockvar,
No. 3:20-cv-00215, Dkt. No. 5 (W.D. Pa. Oct. 22, 2020), the
District Court's order plainly went beyond simply ruling on
the TRO request.
Plaintiffs filed their motion for a TRO and a preliminary
injunction on October 22, along with a supporting brief.
Defendants then filed briefs opposing the motion, with
Plaintiffs filing a reply in support of their motion. The District
Court heard argument from the parties, remotely, during a
90-minute hearing. The next day, the District Court ruled on
the merits of the request for injunctive relief. Bognet, 2020
WL 6323121, at *7. The District Court's Memorandum Order
denied both Bognet and the Voter Plaintiffs the affirmative
relief they sought to obtain prior to Election Day, confirming
that the Commonwealth was to count mailed ballots received
after the close of the polls on Election Day but before 5:00
P.M. on November 6.

In determining whether Bognet and the Voter Plaintiffs had
standing to sue, we resolve a legal issue that does not require
resolution of any factual dispute. Our review is de novo.
Blunt v. Lower Merion Sch. Dist., 767 F.3d 247, 266 (3d
Cir. 2014). “When reviewing a district court's denial of a
preliminary injunction, we review the court's findings of fact
for clear error, its conclusions of law de novo, and the ultimate
decision ... for an abuse of discretion.” Reilly v. City of
Harrisburg, 858 F.3d 173, 176 (3d Cir. 2017) (quoting Bimbo
Bakeries USA, Inc. v. Botticella, 613 F.3d 102, 109 (3d Cir.
2010)) (cleaned up).

III. Analysis
A. Standing
Derived from separation-of-powers principles, the law of
standing “serves to prevent the judicial process from being
used to usurp the powers of the political branches.” Clapper
v. Amnesty Int'l USA, 568 U.S. 398, 408, 133 S.Ct. 1138, 185
L.Ed.2d 264 (2013) (citations omitted). Article III of the U.S.
Constitution vests “[t]he judicial Power of the United States”
in both the Supreme Court and “such inferior Courts as the
Congress may from time to time ordain and establish.” U.S.
Const. art. III, § 1. But this “judicial Power” extends only to
“Cases” and “Controversies.” Id. art. III, § 2; see also Spokeo,
Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547, 194
L.Ed.2d 635 (2016). To ensure that judges avoid rendering
impermissible advisory opinions, parties seeking to invoke
federal judicial power must first establish their standing to do
so. Spokeo, 136 S. Ct. at 1547.
*6 Article III standing doctrine speaks in jargon, but the
gist of its meaning is plain enough. To bring suit, you—and
you personally—must be injured, and you must be injured
in a way that concretely impacts your own protected legal
interests. If you are complaining about something that does
not harm you—and does not harm you in a way that is
concrete—then you lack standing. And if the injury that you
claim is an injury that does no specific harm to you, or if it
depends on a harm that may never happen, then you lack an
injury for which you may seek relief from a federal court.
As we will explain below, Plaintiffs here have not suffered a
concrete, particularized, and non-speculative injury necessary
under the U.S. Constitution for them to bring this federal
lawsuit.

Filedto12/07/20
7 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1582 Case

6

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

The familiar elements of Article III standing require a plaintiff
to have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial decision.”
Id. (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–
61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992); Friends of the
Earth, Inc. v. Laidlaw Env't Servs. (TOC), Inc., 528 U.S. 167,
180–81, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000)). To plead
an injury in fact, the party invoking federal jurisdiction must
establish three sub-elements: first, the “invasion of a legally
protected interest”; second, that the injury is both “concrete
and particularized”; and third, that the injury is “actual or
imminent, not conjectural or hypothetical.” Spokeo, 136 S.
Ct. at 1548 (quoting Lujan, 504 U.S. at 560, 112 S.Ct. 2130);
see also Mielo v. Steak ’n Shake Operations, 897 F.3d 467,
479 n.11 (3d Cir. 2018). The second sub-element requires that
the injury “affect the plaintiff in a personal and individual
way.” Lujan, 504 U.S. at 560 n.1, 112 S.Ct. 2130. As for the
third, when a plaintiff alleges future injury, such injury must
be “certainly impending.” Clapper, 568 U.S. at 409, 133 S.Ct.
1138 (quoting Lujan, 504 U.S. at 565 n.2, 112 S.Ct. 2130).
Allegations of “possible” future injury simply aren't enough.
Id. (quoting Whitmore v. Arkansas, 495 U.S. 149, 158, 110
S.Ct. 1717, 109 L.Ed.2d 135 (1990)). All elements of standing
must exist at the time the complaint is filed. See Lujan, 504
U.S. at 569 n.4, 112 S.Ct. 2130.
With these guideposts in mind, we turn to whether Plaintiffs
have pleaded an Article III injury. They bring several
claims under 42 U.S.C. § 1983, asserting deprivation of
their constitutional rights. They allege that Defendants’
implementation of the Pennsylvania Supreme Court's
Deadline Extension and Presumption of Timeliness violates
the Elections Clause of Article I, the Electors Clause of
Article II, and the Equal Protection Clause of the Fourteenth
Amendment. Because Plaintiffs lack standing to assert these
claims, we will affirm the District Court's denial of injunctive
relief.

1. Plaintiffs lack standing under the Elections Clause and
Electors Clause.
Federal courts are not venues for plaintiffs to assert a bare
right “to have the Government act in accordance with law.”
Allen v. Wright, 468 U.S. 737, 754, 104 S.Ct. 3315, 82 L.Ed.2d
556 (1984), abrogated on other grounds by Lexmark Int'l, Inc.
v. Static Control Components, Inc., 572 U.S. 118, 126–27,
134 S.Ct. 1377, 188 L.Ed.2d 392 (2014). When the alleged

injury is undifferentiated and common to all members of the
public, courts routinely dismiss such cases as “generalized
grievances” that cannot support standing. United States v.
Richardson, 418 U.S. 166, 173–75, 94 S.Ct. 2940, 41 L.Ed.2d
678 (1974). Such is the case here insofar as Plaintiffs, and
specifically candidate Bognet, theorize their harm as the right
to have government administered in compliance with the
Elections Clause and Electors Clause.
To begin with, private plaintiffs lack standing to sue for
alleged injuries attributable to a state government's violations
of the Elections Clause. For example, in Lance v. Coffman,
549 U.S. 437, 127 S.Ct. 1194, 167 L.Ed.2d 29 (2007) (per
curiam), four private citizens challenged in federal district
court a Colorado Supreme Court decision invalidating a
redistricting plan passed by the state legislature and requiring
use of a redistricting plan created by Colorado state courts.
Id. at 438, 127 S.Ct. 1194. The plaintiffs alleged that the
Colorado Supreme Court's interpretation of the Colorado
Constitution violated the Elections Clause “by depriving the
state legislature of its responsibility to draw congressional
districts.” Id. at 441, 127 S.Ct. 1194. The U.S. Supreme Court
held that the plaintiffs lacked Article III standing because
they claimed harm only to their interest, and that of every
citizen, in proper application of the Elections Clause. Id.
at 442, 127 S.Ct. 1194 (“The only injury plaintiffs allege
is that the law—specifically the Elections Clause—has not
been followed.”). Their relief would have no more directly
benefitted them than the public at large. Id. The same is
true here. If anything, Plaintiffs’ “interest in the State's
ability to ‘enforce its duly enacted laws’ ” is even less
compelling because Pennsylvania's “election officials support
the challenged decree.” Republican Nat'l Comm. v. Common
Cause R.I., No. 20A28, 591 U.S. ––––, ––– S.Ct. ––––, ––––,
––– L.Ed.2d ––––, 2020 WL 4680151 (Mem.), at *1 (Aug.
13, 2020) (quoting Abbott v. Perez, ––– U.S. ––––, 138 S. Ct.
2305, 2324 n.17, 201 L.Ed.2d 714 (2018)).
*7 Because the Elections Clause and the Electors Clause
have “considerable similarity,” Ariz. State Legislature v.
Ariz. Indep. Redistricting Comm'n, 576 U.S. 787, 839,
135 S.Ct. 2652, 192 L.Ed.2d 704 (2015) (Roberts, C.J.,
dissenting) (discussing how Electors Clause similarly vests
power to determine manner of appointing electors in “the
Legislature” of each State), the same logic applies to
Plaintiffs’ alleged injury stemming from the claimed violation
of the Electors Clause. See also Foster, 522 U.S. at 69,
118 S.Ct. 464 (characterizing Electors Clause as Elections
Clause's “counterpart for the Executive Branch”); U.S. Term

Filedto12/07/20
8 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1583 Case

7

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Limits, Inc. v. Thornton, 514 U.S. 779, 804–05, 115 S.Ct.
1842, 131 L.Ed.2d 881 (1995) (noting that state's “duty”
under Elections Clause “parallels the duty” described by
Electors Clause).
Even a party that meets Article III standing requirements must
ordinarily rest its claim for relief on violation of its own rights,
not those of a third party. Pitt News v. Fisher, 215 F.3d 354,
361–62 (3d Cir. 2000). Plaintiffs assert that the Pennsylvania
Supreme Court's Deadline Extension and Presumption of
Timeliness usurped the General Assembly's prerogative under
the Elections Clause to prescribe “[t]he Times, Places and
Manner of holding Elections.” U.S. Const. art. I, § 4, cl. 1. The
Elections Clause grants that right to “the Legislature” of “each
State.” Id. Plaintiffs’ Elections Clause claims thus “belong,
if they belong to anyone, only to the Pennsylvania General
Assembly.” Corman v. Torres, 287 F. Supp. 3d 558, 573
(M.D. Pa. 2018) (three-judge panel) (per curiam). Plaintiffs
here are four individual voters and a candidate for federal
office; they in no way constitute the General Assembly, nor
can they be said to comprise any part of the law-making
processes of Pennsylvania. Ariz. State Legislature, 576 U.S.
at 824, 135 S.Ct. 2652.5 Because Plaintiffs are not the General
Assembly, nor do they bear any conceivable relationship to
state lawmaking processes, they lack standing to sue over the
alleged usurpation of the General Assembly's rights under the
Elections and Electors Clauses. No member of the General
Assembly is a party to this lawsuit.
That said, prudential standing can suspend Article III's
general prohibition on a litigant's raising another person's
legal rights. Yet Plaintiffs don't fit the bill. A plaintiff may
assert the rights of another if he or she “has a ‘close’
relationship with the person who possesses the right” and
“there is a ‘hindrance’ to the possessor's ability to protect
his own interests.” Kowalski v. Tesmer, 543 U.S. 125, 130,
125 S.Ct. 564, 160 L.Ed.2d 519 (2004) (citation omitted).
Plaintiffs cannot invoke this exception to the rule against
raising the rights of third parties because they enjoy no close
relationship with the General Assembly, nor have they alleged
any hindrance to the General Assembly's ability to protect its
own interests. See, e.g., Corman, 287 F. Supp. 3d at 573. Nor
does Plaintiffs’ other theory of prudential standing, drawn
from Bond v. United States, 564 U.S. 211, 131 S.Ct. 2355, 180
L.Ed.2d 269 (2011), advance the ball.
*8 In Bond, the Supreme Court held that a litigant has
prudential standing to challenge a federal law that allegedly
impinges on the state's police powers, “in contravention of

constitutional principles of federalism” enshrined in the Tenth
Amendment. Id. at 223–24, 131 S.Ct. 2355. The defendant
in Bond challenged her conviction under 18 U.S.C. § 229,
which Congress enacted to comply with a chemical weapons
treaty that the United States had entered. Id. at 214–15,
131 S.Ct. 2355. Convicted under the statute she sought to
challenge, Bond satisfied Article III's standing requirements.
Id. at 217, 131 S.Ct. 2355 (characterizing Bond's sentence
and incarceration as concrete, and redressable by invalidation
of her conviction); id. at 224–25, 131 S.Ct. 2355 (noting
that Bond was subject to “[a] law,” “prosecution,” and
“punishment” she might not have faced “if the matter were
left for the Commonwealth of Pennsylvania to decide”). She
argued that her conduct was “local in nature” such that §
229 usurped the Commonwealth's reserved police powers.
Id. Rejecting the Government's contention that Bond was
barred as a third party from asserting the rights of the
Commonwealth, id. at 225, 131 S.Ct. 2355, the Court held
that “[t]he structural principles secured by the separation of
powers protect the individual as well” as the State. Id. at 222,
131 S.Ct. 2355 (“Federalism also protects the liberty of all
persons within a State by ensuring that laws enacted in excess
of delegated governmental power cannot direct or control
their actions. ... When government acts in excess of its lawful
powers, that [personal] liberty is at stake.”).
But the nub of Plaintiffs’ argument here is that the
Pennsylvania Supreme Court intruded on the authority
delegated to the Pennsylvania General Assembly under
Articles I and II of the U.S. Constitution to regulate federal
elections. They do not allege any violation of the Tenth
Amendment, which provides that “[t]he powers not delegated
to the United States by the Constitution, nor prohibited by
it to the States, are reserved to the States respectively, or to
the people.” U.S. Const. amend. X. Nor could they. After
all, states have no inherent or reserved power over federal
elections. U.S. Term Limits, 514 U.S. at 804–05, 115 S.Ct.
1842. When “deciding issues raised under the Elections
Clause,” courts “need not be concerned with preserving a
‘delicate balance’ between competing sovereigns.” Gonzalez
v. Arizona, 677 F.3d 383, 392 (9th Cir. 2012). Either federal
and state election law “operate harmoniously in a single
procedural scheme,” or they don't—and the federal law
preempts (“alter[s]”) state election law under the Elections
Clause. Id. at 394. An assessment that the Pennsylvania
Supreme Court lacked the legislative authority under the
state's constitution necessary to comply with the Elections
Clause (Appellants’ Br. 24–27) does not implicate Bond,
the Tenth Amendment, or even Article VI's Supremacy

Filedto12/07/20
9 of 20Works.
Document 59-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1584 Case

8

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Clause.6 See Gonzalez, 677 F.3d at 390–92 (contrasting
Elections Clause with Supremacy Clause and describing
former as “unique,” containing “[an] unusual delegation of
power,” and “unlike virtually all other provisions of the
Constitution”). And, of course, third-party standing under
Bond still presumes that the plaintiff otherwise meets the
requirements of Article III; as discussed above, Plaintiffs do
not.

*9 Plaintiffs therefore lack Article III standing to challenge
Defendants’ implementation of the Pennsylvania Supreme
Court's Deadline Extension and Presumption of Timeliness
under the Elections Clause and Electors Clause.

Plaintiff Bognet, a candidate for Congress who is currently a
private citizen, does not plead a cognizable injury by alleging
a “right to run in an election where Congress has paramount
authority,” Compl. ¶ 69, or by pointing to a “threatened”
reduction in the competitiveness of his election from counting
absentee ballots received within three days after Election Day.
Appellants’ Br. 21. Bognet does not explain how that “right
to run” affects him in a particularized way when, in fact,
all candidates in Pennsylvania, including Bognet's opponent,
are subject to the same rules. And Bognet does not explain
how counting more timely cast votes would lead to a less
competitive race, nor does he offer any evidence tending to
show that a greater proportion of mailed ballots received after
Election Day than on or before Election Day would be cast for
Bognet's opponent. What's more, for Bognet to have standing
to enjoin the counting of ballots arriving after Election Day,
such votes would have to be sufficient in number to change the
outcome of the election to Bognet's detriment. See, e.g., Sibley
v. Alexander, 916 F. Supp. 2d 58, 62 (D.D.C. 2013) (“[E]ven
if the Court granted the requested relief, [plaintiff] would
still fail to satisfy the redressability element [of standing]
because enjoining defendants from casting the ... votes would
not change the outcome of the election.” (citing Newdow
v. Roberts, 603 F.3d 1002, 1011 (D.C. Cir. 2010) (citations
omitted)). Bognet does not allege as much, and such a
prediction was inherently speculative when the complaint was
filed. The same can be said for Bognet's alleged wrongfully
incurred expenditures and future expenditures. Any harm
Bognet sought to avoid in making those expenditures was
not “certainly impending”—he spent the money to avoid
a speculative harm. See Donald J. Trump for Pres., Inc.
v. Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––,
2020 WL 5997680, at *36 (W.D. Pa. Oct. 10, 2020). Nor
are those expenditures “fairly traceable” under Article III to
the actions that Bognet challenges. See, e.g., Clapper, 568
U.S. at 402, 416, 133 S.Ct. 1138 (rejecting argument that
plaintiff can “manufacture standing by choosing to make
expenditures based on hypothetical future harm that is not

Stressing the “personal” nature of the right to vote, the
Voter Plaintiffs assert two claims under the Equal Protection

certainly impending”).7

2. The Voter Plaintiffs lack standing under the Equal
Protection Clause.

Clause.8 First, they contend that the influence of their votes,
cast in person on Election Day, is “diluted” both by (a)
mailed ballots cast on or before Election Day but received
between Election Day and the Deadline Extension date,
ballots which Plaintiffs assert cannot be lawfully counted; and
(b) mailed ballots that were unlawfully cast (i.e., placed in
the mail) after Election Day but are still counted because of
the Presumption of Timeliness. Second, the Voter Plaintiffs
allege that the Deadline Extension and the Presumption
of Timeliness create a preferred class of voters based on
“arbitrary and disparate treatment” that values “one person's
vote over that of another.” Bush v. Gore, 531 U.S. 98, 104–05,
121 S.Ct. 525, 148 L.Ed.2d 388 (2000). The Voter Plaintiffs
lack Article III standing to assert either injury.

a. Vote Dilution
As discussed above, the foremost element of standing is injury
in fact, which requires the plaintiff to show a harm that is both
“concrete and particularized” and “actual or imminent, not
conjectural or hypothetical.” Spokeo, 136 S. Ct. at 1547–48
(citation omitted). The Voter Plaintiffs lack standing to redress
their alleged vote dilution because that alleged injury is not
concrete as to votes counted under the Deadline Extension,
nor is it particularized for Article III purposes as to votes
counted under the Deadline Extension or the Presumption of
Timeliness.

i. No concrete injury from vote dilution attributable to the
Deadline Extension.
The Voter Plaintiffs claim that Defendants’ implementation of
the Deadline Extension violates the Equal Protection Clause
because “unlawfully” counting ballots received within three
days of Election Day dilutes their votes. But the source of this

2:20-cv-01771-PP
12/07/20
Page
10 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1585 Case

9

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

purported illegality is necessarily a matter of state law, which
makes any alleged harm abstract for purposes of the Equal
Protection Clause. And the purported vote dilution is also not
concrete because it would occur in equal proportion without
the alleged procedural illegality—that is, had the General
Assembly enacted the Deadline Extension, which the Voter
Plaintiffs do not challenge substantively.9
*10 The concreteness of the Voter Plaintiffs’ alleged vote
dilution stemming from the Deadline Extension turns on the
federal and state laws applicable to voting procedures. Federal
law does not provide for when or how ballot counting occurs.
See, e.g., Trump for Pres., Inc. v. Way, No. 20-cv-01753, –––
F.Supp.3d ––––, ––––, 2020 WL 5912561, at *12 (D.N.J.
Oct. 6, 2020) (“Plaintiffs direct the Court to no federal law
regulating methods of determining the timeliness of mail-in
ballots or requiring that mail-in ballots be postmarked.”); see
also Smiley v. Holm, 285 U.S. 355, 366, 52 S.Ct. 397, 76 L.Ed.
795 (1932) (noting that Elections Clause delegates to state
lawmaking processes all authority to prescribe “procedure
and safeguards” for “counting of votes”). Instead, the
Elections Clause delegates to each state's lawmaking function
the authority to prescribe such procedural regulations
applicable to federal elections. U.S. Term Limits, 514 U.S.
at 832–35, 115 S.Ct. 1842 (“The Framers intended the
Elections Clause to grant States authority to create procedural
regulations .... [including] ‘whether the electors should vote
by ballot or vivâ voce ....’ ” (quoting James Madison, 2
Records of the Federal Convention of 1787, at 240 (M.
Farrand ed. 1911) (cleaned up)); Smiley, 285 U.S. at 366, 52
S.Ct. 397 (describing state authority under Elections Clause
“to provide a complete code for congressional elections ...
in relation to notices, registration, supervision of voting,
protection of voters, prevention of fraud and corrupt practices,
counting of votes, duties of inspectors and canvassers, and
making and publication of election returns”). That delegation
of authority embraces all procedures “which experience
shows are necessary in order to enforce the fundamental right
involved.” Smiley, 285 U.S. at 366, 52 S.Ct. 397. Congress
exercises its power to “alter” state election regulations only if
the state regime cannot “operate harmoniously” with federal
election laws “in a single procedural scheme.” Gonzalez, 677
F.3d at 394.
The Deadline Extension and federal laws setting the date for
federal elections can, and indeed do, operate harmoniously.
At least 19 other States and the District of Columbia have
post-Election Day absentee ballot receipt deadlines.10 And
many States also accept absentee ballots mailed by overseas

uniformed servicemembers that are received after Election
Day, in accordance with the federal Uniformed and Overseas
Citizens Absentee Voting Act, 52 U.S.C. §§ 20301–20311.
So the Voter Plaintiffs’ only cognizable basis for alleging
dilution from the “unlawful” counting of invalid ballots
is state law defining lawful and unlawful ballot counting
practices. Cf. Wise v. Circosta, 978 F.3d 93, 100–01 (4th
Cir. 2020) (“Whether ballots are illegally counted if they are
received more than three days after Election Day depends on
an issue of state law from which we must abstain.” (emphasis
in original)), application for injunctive relief denied sub
nom. Moore v. Circosta, No. 20A72, 592 U.S. ––––, –––
S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6305036 (Oct.
28, 2020). The Voter Plaintiffs seem to admit as much,
arguing “that counting votes that are unlawful under the
General Assembly's enactments will unconstitutionally dilute
the lawful votes” cast by the Voter Plaintiffs. Appellants’
Br. 38; see also id. at 31. In other words, the Voter
Plaintiffs say that the Election Day ballot receipt deadline
in Pennsylvania's codified election law renders the ballots
untimely and therefore unlawful to count. Defendants, for
their part, contend that the Pennsylvania Supreme Court's
extension of that deadline under the Free and Equal Elections
Clause of the state constitution renders them timely, and
therefore lawful to count.
*11 This conceptualization of vote dilution—state actors
counting ballots in violation of state election law—is not
a concrete harm under the Equal Protection Clause of the
Fourteenth Amendment. Violation of state election laws by
state officials or other unidentified third parties is not always
amenable to a federal constitutional claim. See Shipley v.
Chicago Bd. of Election Comm'rs, 947 F.3d 1056, 1062 (7th
Cir. 2020) (“A deliberate violation of state election laws
by state election officials does not transgress against the
Constitution.”) (cleaned up); Powell v. Power, 436 F.2d 84,
88 (2d Cir. 1970) (rejecting Equal Protection Clause claim
arising from state's erroneous counting of votes cast by voters
unqualified to participate in closed primary). “It was not
intended by the Fourteenth Amendment ... that all matters
formerly within the exclusive cognizance of the states should
become matters of national concern.” Snowden v. Hughes,
321 U.S. 1, 11, 64 S.Ct. 397, 88 L.Ed. 497 (1944).
Contrary to the Voter Plaintiffs’ conceptualization, vote
dilution under the Equal Protection Clause is concerned
with votes being weighed differently. See Rucho v. Common
Cause, ––– U.S. ––––, 139 S. Ct. 2484, 2501, 204 L.Ed.2d
931 (2019) (“ ‘[V]ote dilution’ in the one-person, one-

2:20-cv-01771-PP
12/07/20
Page
11 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1586 Case

10

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

vote cases refers to the idea that each vote must carry
equal weight.” (emphasis added)); cf. Baten v. McMaster,
967 F.3d 345, 355 (4th Cir. 2020), as amended (July 27,
2020) (“[N]o vote in the South Carolina system is diluted.
Every qualified person gets one vote and each vote is
counted equally in determining the final tally.”). As explained
below, the Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes were
weighted differently. Instead, Plaintiffs advance an Equal
Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal
treatment. And if dilution of lawfully cast ballots by the
“unlawful” counting of invalidly cast ballots “were a true
equal-protection problem, then it would transform every
violation of state election law (and, actually, every violation
of every law) into a potential federal equal-protection claim
requiring scrutiny of the government's ‘interest’ in failing
to do more to stop the illegal activity.” Trump for Pres. v.
Boockvar, ––– F.Supp.3d at –––– – ––––, 2020 WL 5997680,
at *45–46. That is not how the Equal Protection Clause
works.11
Even if we were to entertain an end-run around the Voter
Plaintiffs’ lack of Elections Clause standing—by viewing the
federal Elections Clause as the source of “unlawfulness” of
Defendants’ vote counting—the alleged vote dilution would
not be a concrete injury. Consider, as we've noted, that the
Voter Plaintiffs take no issue with the content of the Deadline
Extension; they concede that the General Assembly, as other
state legislatures have done, could have enacted exactly the
same Deadline Extension as a valid “time[ ], place[ ], and
manner” regulation consistent with the Elections Clause.
Cf. Snowden, 321 U.S. at 8, 64 S.Ct. 397 (concluding that
alleged “unlawful administration by state officers of a state
statute fair on its face, resulting in its unequal application
to those who are entitled to be treated alike, is not a denial
of equal protection” (emphasis added)); Powell, 436 F.2d
at 88 (“Uneven or erroneous application of an otherwise
valid statute constitutes a denial of equal protection only
if it represents ‘intentional or purposeful discrimination.’
” (emphasis added) (quoting Snowden, 321 U.S. at 8, 64
S.Ct. 397)). Reduced to its essence, the Voter Plaintiffs’
claimed vote dilution would rest on their allegation that
federal law required a different state organ to issue the
Deadline Extension. The Voter Plaintiffs have not alleged,
for example, that they were prevented from casting their
votes, Guinn v. United States, 238 U.S. 347, 35 S.Ct. 926,
59 L.Ed. 1340 (1915), nor that their votes were not counted,
United States v. Mosley, 238 U.S. 383, 35 S.Ct. 904, 59

L.Ed. 1355 (1915). Any alleged harm of vote dilution that
turns not on the proportional influence of votes, but solely
on the federal illegality of the Deadline Extension, strikes
us as quintessentially abstract in the election law context
and “divorced from any concrete harm.” Spokeo, 136 S.
Ct. at 1549 (citing Summers v. Earth Island Inst., 555 U.S.
488, 496, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009)). That
the alleged violation here relates to election law and the
U.S. Constitution, rather than the mine-run federal consumer
privacy statute, does not abrogate the requirement that a
concrete harm must flow from the procedural illegality. See,
e.g., Lujan, 504 U.S. at 576, 112 S.Ct. 2130 (“[T]here is
absolutely no basis for making the Article III inquiry turn on
the source of the asserted right.”).
*12 The Voter Plaintiffs thus lack a concrete Equal
Protection Clause injury for their alleged harm of vote
dilution attributable to the Deadline Extension.

ii. No particularized injury from votes counted under the
Deadline Extension or the Presumption of Timeliness.
The opposite of a “particularized” injury is a “generalized
grievance,” where “the impact on plaintiff is plainly
undifferentiated and common to all members of the public.”
Id. at 575, 112 S.Ct. 2130 (cleaned up); see also Lance, 549
U.S. at 439, 127 S.Ct. 1194. The District Court correctly held
that the Voter Plaintiffs’ “dilution” claim is a “paradigmatic
generalized grievance that cannot support standing.” Bognet,
2020 WL 6323121, at *4 (quoting Carson v. Simon, No. 20cv-02030, ––– F.Supp.3d ––––, ––––, 2020 WL 6018957,
at *7 (D. Minn. Oct. 12, 2020), rev'd on other grounds,
No. 20-3139, ––– F.3d ––––, 2020 WL 6335967 (8th Cir.
Oct. 29, 2020)). The Deadline Extension and Presumption
of Timeliness, assuming they operate to allow the illegal
counting of unlawful votes, “dilute” the influence of all voters
in Pennsylvania equally and in an “undifferentiated” manner
and do not dilute a certain group of voters particularly.12
Put another way, “[a] vote cast by fraud or mailed in by
the wrong person through mistake,” or otherwise counted
illegally, “has a mathematical impact on the final tally
and thus on the proportional effect of every vote, but no
single voter is specifically disadvantaged.” Martel v. Condos,
No. 5:20-cv-00131, ––– F.Supp.3d ––––, ––––, 2020 WL
5755289, at *4 (D. Vt. Sept. 16, 2020). Such an alleged
“dilution” is suffered equally by all voters and is not
“particularized” for standing purposes. The courts to consider

2:20-cv-01771-PP
12/07/20
Page
12 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1587 Case

11

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

this issue are in accord. See id.; Carson, ––– F.Supp.3d at
–––– – ––––, 2020 WL 6018957, at *7–8; Moore v. Circosta,
Nos. 1:20-cv-00911, 1:20-cv-00912, ––– F.Supp.3d ––––,
––––, 2020 WL 6063332, at *14 (M.D.N.C. Oct. 14, 2020),
emergency injunction pending appeal denied sub nom. Wise
v. Circosta, 978 F.3d 93 (4th Cir. 2020), application for
injunctive relief denied sub nom. Moore v. Circosta, No.
20A72, 592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6305036 (U.S. Oct. 28, 2020); Paher v. Cegavske,
457 F. Supp. 3d 919, 926–27 (D. Nev. Apr. 30, 2020).
But the Voter Plaintiffs argue that their purported “vote
dilution” is an injury in fact sufficient to confer standing, and
not a generalized grievance belonging to all voters, because
the Supreme Court has “long recognized that a person's
right to vote is ‘individual and personal in nature.’ ” Gill v.
Whitford, ––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d
313 (2018) (quoting Reynolds v. Sims, 377 U.S. 533, 561, 84
S.Ct. 1362, 12 L.Ed.2d 506 (1964)). “Thus, ‘voters who allege
facts showing disadvantage to themselves as individuals have
standing to sue’ to remedy that disadvantage.” Id. (quoting
Baker v. Carr, 369 U.S. 186, 206, 82 S.Ct. 691, 7 L.Ed.2d 663
(1962)).
*13 The Voter Plaintiffs’ reliance on this language
from Baker and Reynolds is misplaced. In Baker, the
plaintiffs challenged Tennessee's apportionment of seats in its
legislature as violative of the Equal Protection Clause of the
Fourteenth Amendment. 369 U.S. at 193, 82 S.Ct. 691. The
Supreme Court held that the plaintiffs did have standing under
Article III because “[t]he injury which appellants assert is that
this classification disfavors the voters in the counties in which
they reside, placing them in a position of constitutionally
unjustifiable inequality vis-à-vis voters in irrationally favored
counties.” Id. at 207–08, 82 S.Ct. 691.
Although the Baker Court did not decide the merits of the
Equal Protection claim, the Court in a series of cases—
including Gray v. Sanders, 372 U.S. 368, 83 S.Ct. 801,
9 L.Ed.2d 821 (1963), and Reynolds—made clear that the
Equal Protection Clause prohibits a state from “diluti[ng] ...
the weight of the votes of certain ... voters merely because
of where they reside[ ],” just as it prevents a state from
discriminating on the basis of the voter's race or sex.
Reynolds, 377 U.S. at 557, 84 S.Ct. 1362 (emphasis added).
The Voter Plaintiffs consider it significant that the Court in
Reynolds noted—though not in the context of standing—that
“the right to vote” is “individual and personal in nature.”
Id. at 561, 84 S.Ct. 1362 (quoting United States v. Bathgate,

246 U.S. 220, 227, 38 S.Ct. 269, 62 L.Ed. 676 (1918)). The
Court then explained that a voter's right to vote encompasses
both the right to cast that vote and the right to have that vote
counted without “debasement or dilution”:
The right to vote can neither be denied outright, Guinn
v. United States, 238 U.S. 347 [35 S.Ct. 926, 59 L.Ed.
1340 (1915) ], Lane v. Wilson, 307 U.S. 268 [59 S.Ct.
872, 83 L.Ed. 1281 (1939) ], nor destroyed by alteration
of ballots, see United States v. Classic, 313 U.S. 299, 315
[61 S.Ct. 1031, 85 L.Ed. 1368 (1941) ], nor diluted by
ballot-box stuffing, Ex parte Siebold, 100 U.S. 371 [25
L.Ed. 717 (1880) ], United States v. Saylor, 322 U.S. 385
[64 S.Ct. 1101, 88 L.Ed. 1341 (1944) ]. As the Court
stated in Classic, “Obviously included within the right to
choose, secured by the Constitution, is the right of qualified
voters within a state to cast their ballots and have them
counted ....” 313 U.S. at 315 [61 S.Ct. 1031].
...
“The right to vote includes the right to have the ballot
counted. ... It also includes the right to have the vote
counted at full value without dilution or discount. ... That
federally protected right suffers substantial dilution ...
[where a] favored group has full voting strength ... [and]
[t]he groups not in favor have their votes discounted.”
Reynolds, 377 U.S. at 555 & n.29, 84 S.Ct. 1362 (alterations
in last paragraph in original) (quoting South v. Peters, 339
U.S. 276, 279, 70 S.Ct. 641, 94 L.Ed. 834 (1950) (Douglas,
J., dissenting)).
Still, it does not follow from the labeling of the right to vote as
“personal” in Baker and Reynolds that any alleged illegality
affecting voting rights rises to the level of an injury in fact.
After all, the Court has observed that the harms underlying
a racial gerrymandering claim under the Equal Protection
Clause “are personal” in part because they include the harm of
a voter “being personally subjected to a racial classification.”
Ala. Legis. Black Caucus v. Alabama, 575 U.S. 254, 263,
135 S.Ct. 1257, 191 L.Ed.2d 314 (2015) (cleaned up). Yet a
voter “who complains of gerrymandering, but who does not
live in a gerrymandered district, ‘assert[s] only a generalized
grievance against governmental conduct of which he or she
does not approve.’ ” Gill, 138 S. Ct. at 1930 (quoting United
States v. Hays, 515 U.S. 737, 745, 115 S.Ct. 2431, 132
L.Ed.2d 635 (1995)) (alteration in original). The key inquiry
for standing is whether the alleged violation of the right to
vote arises from an invidious classification—including those
based on “race, sex, economic status, or place of residence

2:20-cv-01771-PP
12/07/20
Page
13 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1588 Case

12

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

within a State,” Reynolds, 377 U.S. at 561, 84 S.Ct. 1362—
to which the plaintiff is subject and in which “the favored
group has full voting strength and the groups not in favor
have their votes discounted,” id. at 555 n.29, 84 S.Ct. 1362
(cleaned up). In other words, “voters who allege facts showing
disadvantage to themselves” have standing to bring suit to
remedy that disadvantage, Baker, 369 U.S. at 206, 82 S.Ct.
691 (emphasis added), but a disadvantage to the plaintiff
exists only when the plaintiff is part of a group of voters whose
votes will be weighed differently compared to another group.
Here, no Pennsylvania voter's vote will count for less than that
of any other voter as a result of the Deadline Extension and
Presumption of Timeliness.13
*14 This conclusion cannot be avoided by describing
one group of voters as “those ... who lawfully vote in
person and submit their ballots on time” and the other
group of voters as those whose (mail-in) ballots arrive
after Election Day and are counted because of the Deadline
Extension and/or the Presumption of Timeliness. Appellants’
Br. 33 (emphasis in original). Although the former group,
under Plaintiffs’ theory, should make up 100% of the total
votes counted and the latter group 0%, there is simply no
differential weighing of the votes. See Wise, 978 F.3d at
104 (Motz, J., concurring) (“But if the extension went into
effect, plaintiffs’ votes would not count for less relative to
other North Carolina voters. This is the core of an Equal
Protection Clause challenge.” (emphasis in original)). Unlike
the malapportionment or racial gerrymandering cases, a vote
cast by a voter in the so-called “favored” group counts not one
bit more than the same vote cast by the “disfavored” group—
no matter what set of scales one might choose to employ. Cf.
Reynolds, 377 U.S. at 555 n.29, 84 S.Ct. 1362. And, however
one tries to draw a contrast, this division is not based on
a voter's personal characteristics at all, let alone a person's
race, sex, economic status, or place of residence. Two voters
could each have cast a mail-in ballot before Election Day at
the same time, yet perhaps only one of their ballots arrived
by 8:00 P.M. on Election Day, given USPS's mail delivery
process. It is passing strange to assume that one of these voters
would be denied “equal protection of the laws” were both
votes counted. U.S. Const. amend. XIV, § 1.
The Voter Plaintiffs also emphasize language from Reynolds
that “[t]he right to vote can neither be denied outright ... nor
diluted by ballot-box stuffing.” 377 U.S. at 555, 84 S.Ct. 1362
(citing Ex parte Siebold, 100 U.S. 371, 25 L.Ed. 717 (1879);
United States v. Saylor, 322 U.S. 385, 64 S.Ct. 1101, 88 L.Ed.
1341 (1944)). In the first place, casting a vote in accordance

with a procedure approved by a state's highest court—even
assuming that approval violates the Elections Clause—is not
equivalent to “ballot-box stuffing.” The Supreme Court has
only addressed this “false”-tally type of dilution where the
tally was false as a result of a scheme to cast falsified or
fraudulent votes. See Saylor, 322 U.S. at 386, 64 S.Ct. 1101.
We are in uncharted territory when we are asked to declare
that a tally that includes false or fraudulent votes is equivalent
to a tally that includes votes that are or may be unlawful
for non-fraudulent reasons, and so is more aptly described as
“incorrect.” Cf. Gray, 372 U.S. at 386, 83 S.Ct. 801 (Harlan,
J., dissenting) (“[I]t is hard to take seriously the argument
that ‘dilution’ of a vote in consequence of a legislatively
sanctioned electoral system can, without more, be analogized
to an impairment of the political franchise by ballot box
stuffing or other criminal activity.”).
Yet even were this analogy less imperfect, it still would not
follow that every such “false” or incorrect tally is an injury
in fact for purposes of an Equal Protection Clause claim. The
Court's cases that describe ballot-box stuffing as an injury
to the right to vote have arisen from criminal prosecutions
under statutes making it unlawful for anyone to injure the
exercise of another's constitutional right. See, e.g., Ex parte
Siebold, 100 U.S. at 373–74 (application for writ of habeas
corpus); Saylor, 322 U.S. at 385–86, 64 S.Ct. 1101 (criminal
appeal regarding whether statute prohibiting “conspir[ing]
to injure ... any citizen in the free exercise ... of any right
or privilege secured to him by the Constitution” applied to
conspiracy to stuff ballot boxes); Anderson v. United States,
417 U.S. 211, 226, 94 S.Ct. 2253, 41 L.Ed.2d 20 (1974)
(criminal prosecution for conspiracy to stuff ballot boxes
under successor to statute in Saylor). Standing was, of course,
never an issue in those cases because the Government was
enforcing its criminal laws. Here, the Voter Plaintiffs, who
bear the burden to show standing, have presented no instance
in which an individual voter had Article III standing to claim
an equal protection harm to his or her vote from the existence
of an allegedly illegal vote cast by someone else in the same
election.
Indeed, the logical conclusion of the Voter Plaintiffs’ theory
is that whenever an elections board counts any ballot that
deviates in some way from the requirements of a state's
legislatively enacted election code, there is a particularized
injury in fact sufficient to confer Article III standing on every
other voter—provided the remainder of the standing analysis
is satisfied. Allowing standing for such an injury strikes us
as indistinguishable from the proposition that a plaintiff has

2:20-cv-01771-PP
12/07/20
Page
14 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1589 Case

13

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

Article III standing to assert a general interest in seeing
the “proper application of the Constitution and laws”—a
proposition that the Supreme Court has firmly rejected. Lujan,
504 U.S. at 573–74, 112 S.Ct. 2130. The Voter Plaintiffs thus
lack standing to bring their Equal Protection vote dilution
claim.

b. Arbitrary and Disparate Treatment
*15 The Voter Plaintiffs also lack standing to allege an
injury in the form of “arbitrary and disparate treatment”
of a preferred class of voters because the Voter Plaintiffs
have not alleged a legally cognizable “preferred class” for
equal protection purposes, and because the alleged harm from
votes counted solely due to the Presumption of Timeliness is
hypothetical or conjectural.

i. No legally protected “preferred class.”
The District Court held that the Presumption of Timeliness
creates a “preferred class of voters” who are “able to cast
their ballots after the congressionally established Election
Day” because it “extends the date of the election by multiple
days for a select group of mail-in voters whose ballots will
be presumed to be timely in the absence of a verifiable
postmark.”14 Bognet, 2020 WL 6323121, at *6. The District
Court reasoned, then, that the differential treatment between
groups of voters is by itself an injury for standing purposes.
To the District Court, this supposed “unequal treatment of
voters ... harms the [Voter] Plaintiffs because, as in-person
voters, they must vote by the end of the congressionally
established Election Day in order to have their votes counted.”
Id. The District Court cited no case law in support of its
conclusion that the injury it identified gives rise to Article III
standing.
The District Court's analysis suffers from several flaws. First,
the Deadline Extension and Presumption of Timeliness apply
to all voters, not just a subset of “preferred” voters. It is an
individual voter's choice whether to vote by mail or in person,
and thus whether to become a part of the so-called “preferred
class” that the District Court identified. Whether to join the
“preferred class” of mail-in voters was entirely up to the Voter
Plaintiffs.
Second, it is not clear that the mere creation of so-called
“classes” of voters constitutes an injury in fact. An injury in

fact requires the “invasion of a legally protected interest.”
Lujan, 504 U.S. at 560, 112 S.Ct. 2130. We doubt that
the mere existence of groupings of voters qualifies as an
injury per se. “An equal protection claim will not lie by
‘conflating all persons not injured into a preferred class
receiving better treatment’ than the plaintiff.” Thornton v. City
of St. Helens, 425 F.3d 1158, 1167 (9th Cir. 2005) (quoting
Joyce v. Mavromatis, 783 F.2d 56, 57 (6th Cir. 1986)); see
also, e.g., Batra v. Bd. of Regents of Univ. of Neb., 79 F.3d 717,
721 (8th Cir. 1996) (“[T]he relevant prerequisite is unlawful
discrimination, not whether plaintiff is part of a victimized
class.”). More importantly, the Voter Plaintiffs have shown
no disadvantage to themselves that arises simply by being
separated into groupings. For instance, there is no argument
that it is inappropriate that some voters will vote in person and
others will vote by mail. The existence of these two groups of
voters, without more, simply does not constitute an injury in
fact to in-person voters.
Plaintiffs may believe that injury arises because of a
preference shown for one class over another. But what,
precisely, is the preference of which Plaintiffs complain? In
Bush v. Gore, the Supreme Court held that a State may not
engage in arbitrary and disparate treatment that results in
the valuation of one person's vote over that of another. 531
U.S. at 104–05, 121 S.Ct. 525. Thus, “the right of suffrage
can be denied by a debasement or dilution of the weight of
a citizen's vote just as effectively as by wholly prohibiting
the free exercise of the franchise.” Id. at 105, 121 S.Ct. 525
(quoting Reynolds, 377 U.S. at 555, 84 S.Ct. 1362) (emphasis
added). As we have already discussed, vote dilution is not an
injury in fact here.
*16 What about the risk that some ballots placed in the
mail after Election Day may still be counted? Recall that
no voter—whether in person or by mail—is permitted to
vote after Election Day. Under Plaintiffs’ argument, it might
theoretically be easier for one group of voters—mail-in voters
—to illegally cast late votes than it is for another group of
voters—in-person voters. But even if that is the case, no
group of voters has the right to vote after the deadline.15 We
remember that “a private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.”
Linda R.S. v. Richard D., 410 U.S. 614, 619, 93 S.Ct. 1146, 35
L.Ed.2d 536 (1973) (citations omitted). And “a plaintiff lacks
standing to complain about his inability to commit crimes
because no one has a right to commit a crime.” Citizen Ctr.
v. Gessler, 770 F.3d 900, 910 (10th Cir. 2014). Without a
showing of discrimination or other intentionally unlawful

2:20-cv-01771-PP
12/07/20
Page
15 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1590 Case

14

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

conduct, or at least some burden on Plaintiffs’ own voting
rights, we discern no basis on which they have standing to
challenge the slim opportunity the Presumption of Timeliness
conceivably affords wrongdoers to violate election law. Cf.
Minn. Voters Alliance v. Ritchie, 720 F.3d 1029, 1033 (8th Cir.
2013) (affirming dismissal of claims “premised on potential
harm in the form of vote dilution caused by insufficient
pre-election verification of [election day registrants’] voting
eligibility and the absence of post-election ballot rescission
procedures”).

ii. Speculative injury from ballots counted under the
Presumption of Timeliness.
Plaintiffs’ theory as to the Presumption of Timeliness focuses
on the potential for some voters to vote after Election Day
and still have their votes counted. This argument reveals that
their alleged injury in fact attributable to the Presumption is
“conjectural or hypothetical” instead of “actual or imminent.”
Spokeo, 136 S. Ct. at 1547–48 (quoting Lujan, 504 U.S. at
560, 112 S.Ct. 2130). The Supreme Court has emphasized
that a threatened injury must be “certainly impending” and
not merely “possible” for it to constitute an injury in fact.
Clapper, 568 U.S. at 409, 133 S.Ct. 1138 (emphasis in
original) (quoting Whitmore v. Ark., 495 U.S. 149, 158, 110
S.Ct. 1717, 109 L.Ed.2d 135 (1990)). When determining
Article III standing, our Court accepts allegations based
on well-pleaded facts; but we do not credit bald assertions
that rest on mere supposition. Finkelman v. NFL, 810 F.3d
187, 201–02 (3d Cir. 2016). The Supreme Court has also
emphasized its “reluctance to endorse standing theories that
rest on speculation about the decisions of independent actors.”
Clapper, 568 U.S. at 414, 133 S.Ct. 1138. A standing
theory becomes even more speculative when it requires that
independent actors make decisions to act unlawfully. See City
of L.A. v. Lyons, 461 U.S. 95, 105–06 & 106 n.7, 103 S.Ct.
1660, 75 L.Ed.2d 675 (1983) (rejecting Article III standing
to seek injunction where party invoking federal jurisdiction
would have to establish that he would unlawfully resist arrest
or police officers would violate department orders in future).
Here, the Presumption of Timeliness could inflict injury on
the Voter Plaintiffs only if: (1) another voter violates the
law by casting an absentee ballot after Election Day; (2)
the illegally cast ballot does not bear a legible postmark,
which is against USPS policy;16 (3) that same ballot still
arrives within three days of Election Day, which is faster
than USPS anticipates mail delivery will occur;17 (4) the

ballot lacks sufficient indicia of its untimeliness to overcome
the Presumption of Timeliness; and (5) that same ballot is
ultimately counted. See Donald J. Trump for Pres., Inc. v.
Way, No. 20-cv-10753, 2020 WL 6204477, at *7 (D.N.J.
Oct. 22, 2020) (laying out similar “unlikely chain of events”
required for vote dilution harm from postmark rule under
New Jersey election law); see also Reilly v. Ceridian Corp.,
664 F.3d 38, 43 (3d Cir. 2011) (holding purported injury
in fact was too conjectural where “we cannot now describe
how Appellants will be injured in this case without beginning
our explanation with the word ‘if’ ”). This parade of
horribles “may never come to pass,” Trump for Pres. v.
Boockvar, 2020 WL 5997680, at *33, and we are especially
reluctant to endorse such a speculative theory of injury
given Pennsylvania's “own mechanisms for deterring and
prosecuting voter fraud,” Donald J. Trump for Pres., Inc. v.
Cegavske, No. 20-1445, ––– F.Supp.3d ––––, ––––, 2020 WL
5626974, at *6 (D. Nev. Sept. 18, 2020).18
*17 To date, the Secretary has reported that at least 655
ballots without a legible postmark have been collected within
the Deadline Extension period.19 But it is mere speculation
to say that any one of those ballots was cast after Election
Day. We are reluctant to conclude that an independent actor
—here, one of 655 voters—decided to mail his or her ballot
after Election Day contrary to law. The Voter Plaintiffs have
not provided any empirical evidence on the frequency of voter
fraud or the speed of mail delivery that would establish a
statistical likelihood or even the plausibility that any of the
655 ballots was cast after Election Day. Any injury to the
Voter Plaintiffs attributable to the Presumption of Timeliness
is merely “possible,” not “actual or imminent,” and thus
cannot constitute an injury in fact.
B. Purcell
Even were we to conclude that Plaintiffs have standing, we
could not say that the District Court abused its discretion in
concluding on this record that the Supreme Court's electionlaw jurisprudence counseled against injunctive relief. Unique
and important equitable considerations, including voters’
reliance on the rules in place when they made their plans
to vote and chose how to cast their ballots, support that
disposition. Plaintiffs’ requested relief would have upended
this status quo, which is generally disfavored under the “voter
confusion” and election confidence rationales of Purcell v.
Gonzalez, 549 U.S. 1, 4–5, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006).
One can assume for the sake of argument that aspects of
the now-prevailing regime in Pennsylvania are unlawful as

2:20-cv-01771-PP
12/07/20
Page
16 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1591 Case

15

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

alleged and still recognize that, given the timing of Plaintiffs’
request for injunctive relief, the electoral calendar was such
that following it “one last time” was the better of the choices
available. Perez, 138 S. Ct. at 2324 (“And if a [redistricting]
plan is found to be unlawful very close to the election date, the
only reasonable option may be to use the plan one last time.”).

––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6275871
(Oct. 26, 2020) (denying application to vacate stay). Justice
Kavanaugh explained that the injunction was improper for
the “independent reason[ ]” that “the District Court changed
Wisconsin's election rules too close to the election, in
contravention of this Court's precedents.” Id. at ––––, 2020
WL 6275871 at *3 (Kavanaugh, J., concurring). Purcell and

Here, less than two weeks before Election Day, Plaintiffs
asked the District Court to enjoin a deadline established by
the Pennsylvania Supreme Court on September 17, a deadline
that may have informed voters’ decisions about whether and
when to request mail-in ballots as well as when and how
they cast or intended to cast them. In such circumstances,
the District Court was well within its discretion to give heed
to Supreme Court decisions instructing that “federal courts
should ordinarily not alter the election rules on the eve of
an election.” Republican Nat'l Comm. v. Democratic Nat'l
Comm., ––– U.S. ––––, 140 S. Ct. 1205, 1207, 206 L.Ed.2d
452 (2020) (per curiam) (citing Purcell, 549 U.S. at 1, 127
S.Ct. 5).

a string20 of Supreme Court election-law decisions in 2020
“recognize a basic tenet of election law: When an election is
close at hand, the rules of the road should be clear and settled.”
Id.

In Purcell, an appeal from a federal court order enjoining
the State of Arizona from enforcing its voter identification
law, the Supreme Court acknowledged that “[c]onfidence
in the integrity of our electoral processes is essential to
the functioning of our participatory democracy.” 549 U.S.
at 4, 127 S.Ct. 5. In other words, “[c]ourt orders affecting
elections, especially conflicting orders, can themselves result
in voter confusion and consequent incentive to remain away
from the polls. As an election draws closer, that risk will
increase.” Id. at 4–5, 127 S.Ct. 5. Mindful of “the necessity for
clear guidance to the State of Arizona” and “the imminence
of the election,” the Court vacated the injunction. Id. at 5, 127
S.Ct. 5.
The principle announced in Purcell has very recently been
reiterated. First, in Republican National Committee, the
Supreme Court stayed on the eve of the April 7 Wisconsin
primary a district court order that altered the State's voting
rules by extending certain deadlines applicable to absentee
ballots. 140 S. Ct. at 1206. The Court noted that it was
adhering to Purcell and had “repeatedly emphasized that
lower federal courts should ordinarily not alter the election
rules on the eve of an election.” Id. at 1207 (citing Purcell,
549 U.S. at 1, 127 S.Ct. 5). And just over two weeks
ago, the Court denied an application to vacate a stay of a
district court order that made similar changes to Wisconsin's
election rules six weeks before Election Day. Democratic
Nat'l Comm. v. Wis. State Legislature, No. 20A66, 592 U.S.

*18 The prevailing state election rule in Pennsylvania
permitted voters to mail ballots up through 8:00 P.M. on
Election Day so long as their ballots arrived by 5:00 P.M.
on November 6. Whether that rule was wisely or properly
put in place is not before us now. What matters for our
purposes today is that Plaintiffs’ challenge to it was not filed
until sufficiently close to the election to raise a reasonable
concern in the District Court that more harm than good would
come from an injunction changing the rule. In sum, the
District Court's justifiable reliance on Purcell constitutes an
“alternative and independent reason[ ]” for concluding that
an “injunction was unwarranted” here. Wis. State Legislature,
––– S.Ct. at ––––, 2020 WL 6275871, at *3 (Kavanaugh, J.,
concurring).

IV. Conclusion
We do not decide today whether the Deadline Extension
or the Presumption of Timeliness are proper exercises of
the Commonwealth of Pennsylvania's lawmaking authority,
delegated by the U.S. Constitution, to regulate federal
elections. Nor do we evaluate the policy wisdom of those
two features of the Pennsylvania Supreme Court's ruling.
We hold only that when voters cast their ballots under a
state's facially lawful election rule and in accordance with
instructions from the state's election officials, private citizens
lack Article III standing to enjoin the counting of those ballots
on the grounds that the source of the rule was the wrong
state organ or that doing so dilutes their votes or constitutes
differential treatment of voters in violation of the Equal
Protection Clause. Further, and independent of our holding
on standing, we hold that the District Court did not err in
denying Plaintiffs’ motion for injunctive relief out of concern
for the settled expectations of voters and election officials. We
will affirm the District Court's denial of Plaintiffs’ emergency
motion for a TRO or preliminary injunction.

2:20-cv-01771-PP
12/07/20
Page
17 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1592 Case

16

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

All Citations
--- F.3d ----, 2020 WL 6686120

Footnotes

1
2
3
4
5

6

7

8
9

10

Second Letter from Phocion (April 1784), reprinted in 3 The Papers of Alexander Hamilton, 1782–1786, 530–58 (Harold
C. Syrett ed., 1962).
Throughout this opinion, we refer to absentee voting and mail-in voting interchangeably.
The Free and Equal Elections Clause of the Pennsylvania Constitution provides: “Elections shall be free and equal; and no
power, civil or military, shall at any time interfere to prevent the free exercise of the right of suffrage.” Pa. Const. art. 1, § 5.
Because we have received comprehensive briefing, and given the weighty public interest in a prompt ruling on the matter
before us, we have elected to forgo oral argument.
Bognet seeks to represent Pennsylvania in Congress, but even if he somehow had a relationship to state lawmaking
processes, he would lack personal standing to sue for redress of the alleged “institutional injury (the diminution of
legislative power), which necessarily damage[d] all Members of [the legislature] ... equally.” Raines v. Byrd, 521 U.S. 811,
821, 117 S.Ct. 2312, 138 L.Ed.2d 849 (1997) (plaintiffs were six out of 535 members of Congress); see also Corman, 287
F. Supp. 3d at 568–69 (concluding that “two of 253 members of the Pennsylvania General Assembly” lacked standing to
sue under Elections Clause for alleged “deprivation of ‘their legislative authority to apportion congressional districts’ ”);
accord Va. House of Delegates v. Bethune-Hill, ––– U.S. ––––, 139 S. Ct. 1945, 1953, 204 L.Ed.2d 305 (2019).
Our conclusion departs from the recent decision of an Eighth Circuit panel which, over a dissent, concluded that
candidates for the position of presidential elector had standing under Bond to challenge a Minnesota state-court consent
decree that effectively extended the receipt deadline for mailed ballots. See Carson v. Simon, No. 20-3139, ––– F.3d
––––, ––––, 2020 WL 6335967, at *5 (8th Cir. Oct. 29, 2020). The Carson court appears to have cited language from
Bond without considering the context—specifically, the Tenth Amendment and the reserved police powers—in which the
U.S. Supreme Court employed that language. There is no precedent for expanding Bond beyond this context, and the
Carson court cited none.
The alleged injury specific to Bognet does not implicate the Qualifications Clause or exclusion from Congress, Powell
v. McCormack, 395 U.S. 486, 550, 89 S.Ct. 1944, 23 L.Ed.2d 491 (1969), nor the standing of members of Congress
to bring actions alleging separation-of-powers violations. Moore v. U.S. House of Reps., 733 F.2d 946, 959 (D.C. Cir.
1984) (Scalia, J., concurring).
Only the Voter Plaintiffs bring the Equal Protection count in the Complaint; Bognet did not join that count.
We exclude the Presumption of Timeliness from our concreteness analysis. Plaintiffs allege that the federal statutes
providing for a uniform election day, 3 U.S.C. § 1 and 2 U.S.C. § 7, conflict with, and thus displace, any state law that
would authorize voting after Election Day. They claim that the Presumption permits, theoretically at least, some voters
whose ballots lack a legible postmark to vote after Election Day, in violation of these federal statutes. So unlike the
Deadline Extension, Plaintiffs contend that the General Assembly could not enact the Presumption consistent with the
Constitution. This conceptualization of injury is thus more properly characterized as “concrete” than is the purported
Deadline Extension injury attributable to voters having their timely voted ballots received and counted after Election Day.
That said, we express no opinion about whether the Voter Plaintiffs have, in fact, alleged such a concrete injury for
standing purposes.
See AS § 15.20.081(e) & (h) (Alaska – 10 days after Election Day if postmarked on or before Election Day); West's Ann.
Cal. Elec. Code § 3020(b) (California – three days after Election Day if postmarked on or before Election Day); DC ST §
1-1001.05(a)(10A) (District of Columbia – seven days after the election if postmarked on or before Election Day); 10 ILCS
5/19-8, 5/18A-15 (Illinois – 14 days after the election if postmarked on or before Election Day); K.S.A. 25-1132 (Kansas
– three days after the election if postmarked before the close of polls on Election Day); MD Code, Elec. Law, § 9-505
(Maryland – the second Friday after Election Day if postmarked on or before Election Day); Miss. Code Ann. § 23-15-637
(Mississippi – five business days after Election Day if postmarked on or before Election Day); NV Rev Stat § 293.317
(Nevada – by 5:00 P.M. on the seventh day after Election Day if postmarked by Election Day, and ballots with unclear
postmarks must be received by 5:00 P.M. on the third day after Election Day); N.J.S.A. 19:63-22 (New Jersey – 48
hours after polls close if postmarked on or before Election Day); McKinney's Elec. Law § 8-412 (New York – seven days
after the election for mailed ballots postmarked on Election Day); N.C. Gen. Stat. § 163-231(b)(2) and Wise v. Circosta,

2:20-cv-01771-PP
12/07/20
Page
18 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1593 Case

17

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120

11

12

13

14
15
16
17
18

19

20

978 F.3d 93, 96 (4th Cir. 2020) (North Carolina – recognizing extension from three to nine days after the election the
deadline for mail ballots postmarked on or before Election Day); Texas Elec. Code § 86.007 (the day after the election
by 5:00 P.M. if postmarked on or before Election Day); Va. Code 24.2-709 (Virginia – by noon on the third day after
the election if postmarked on or before Election Day); West's RCWA 29A.40.091 (Washington – no receipt deadline for
ballots postmarked on or before Election Day); W. Va. Code, §§ 3-3-5, 3-5-17 (West Virginia – five days after the election
if postmarked on or before Election Day); see also Iowa Code § 53.17(2) (by noon the Monday following the election if
postmarked by the day before Election Day); NDCC 16.1-07-09 (North Dakota – before the canvass if postmarked the
day before Election Day); R.C. § 3509.05 (Ohio – 10 days after the election if postmarked by the day before Election
Day); Utah Code Ann. § 20A-3a-204 (seven to 14 days after the election if postmarked the day before the election).
Bush v. Gore does not require us to perform an Equal Protection Clause analysis of Pennsylvania election law as
interpreted by the Pennsylvania Supreme Court. See 531 U.S. at 109, 121 S.Ct. 525 (“Our consideration is limited to the
present circumstances ....”); id. at 139–40, 121 S.Ct. 525 (Ginsburg, J., dissenting) (discussing “[r]are[ ]” occasions when
Supreme Court rejected state supreme court's interpretation of state law, one of which was in 1813 and others occurred
during Civil Rights Movement—and none decided federal equal protection issues).
In their complaint, the Voter Plaintiffs alleged that they are all “residents of Somerset County, a county where voters are
requesting absentee ballots at a rate far less than the state average” and thus, somehow, the Voter Plaintiffs’ votes “will
be diluted to a greater degree than other voters.” Compl. ¶ 71 (emphasis in original). Plaintiffs continue to advance this
argument on appeal in support of standing, and it additionally suffers from being a conjectural or hypothetical injury under
the framework discussed infra Section III.A.2.b.ii. It is purely hypothetical that counties where a greater percentage of
voters request absentee ballots will more frequently have those ballots received after Election Day.
Plaintiffs also rely on FEC v. Akins, 524 U.S. 11, 118 S.Ct. 1777, 141 L.Ed.2d 10 (1998), for the proposition that a
widespread injury—such as a mass tort injury or an injury “where large numbers of voters suffer interference with voting
rights conferred by law”—does not become a “generalized grievance” just because many share it. Id. at 24–25, 118 S.Ct.
1777. That's true as far as it goes. But the Voter Plaintiffs have not alleged an injury like that at issue in Akins. There,
the plaintiffs’ claimed injury was their inability to obtain information they alleged was required to be disclosed under the
Federal Election Campaign Act. Id. at 21, 118 S.Ct. 1777. The plaintiffs alleged a statutory right to obtain information
and that the same information was being withheld. Here, the Voter Plaintiffs’ alleged injury is to their right under the
Equal Protection Clause not to have their votes “diluted,” but the Voter Plaintiffs have not alleged that their votes are
less influential than any other vote.
The District Court did not find that the Deadline Extension created such a preferred class.
Moreover, we cannot overlook that the mail-in voters potentially suffer a disadvantage relative to the in-person voters.
Whereas in-person ballots that are timely cast will count, timely cast mail-in ballots may not count because, given mail
delivery rates, they may not be received by 5:00 P.M. on November 6.
See Defendant-Appellee's Br. 30 (citing 39 C.F.R. § 211.2(a)(2); Postal Operations Manual at 443.3).
See Pa. Democratic Party, 238 A.3d at 364 (noting “current two to five day delivery expectation of the USPS”).
Indeed, the conduct required of a voter to effectuate such a scheme may be punishable as a crime under Pennsylvania
statutes that criminalize forging or “falsely mak[ing] the official endorsement on any ballot,” 25 Pa. Stat. & Cons. Stat. §
3517 (punishable by up to two years’ imprisonment); “willfully disobey[ing] any lawful instruction or order of any county
board of elections,” id. § 3501 (punishable by up to one year's imprisonment); or voting twice in one election, id. § 3535
(punishable by up to seven years’ imprisonment).
As of the morning of November 12, Secretary Boockvar estimates that 655 of the 9383 ballots received between 8:00
P.M. on Election Day and 5:00 P.M. on November 6 lack a legible postmark. See Dkt. No. 59. That estimate of 655 ballots
does not include totals from five of Pennsylvania's 67 counties: Lehigh, Northumberland, Tioga, Warren, and Wayne. Id.
The 9383 ballots received, however, account for all of Pennsylvania's counties. Id.
See, e.g., Andino v. Middleton, No. 20A55, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020 WL 5887393,
at *1 (Oct. 5, 2020) (Kavanaugh, J., concurring) (“By enjoining South Carolina's witness requirement shortly before the
election, the District Court defied [the Purcell] principle and this Court's precedents.” (citations omitted)); Merrill v. People
First of Ala., No. 19A1063, 591 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020 WL 3604049 (Mem.), at *1
(July 2, 2020); Republican Nat'l Comm., 140 S. Ct. at 1207; see also Democratic Nat'l Comm. v. Bostelmann, 977 F.3d
639, 641 (7th Cir. 2020) (per curiam) (holding that injunction issued six weeks before election violated Purcell); New Ga.
Project v. Raffensperger, 976 F.3d 1278, 1283 (11th Cir. Oct. 2, 2020) (“[W]e are not on the eve of the election—we
are in the middle of it, with absentee ballots already printed and mailed. An injunction here would thus violate Purcell’s

2:20-cv-01771-PP
12/07/20
Page
19 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1594 Case

18

Bognet v. Secretary Commonwealth of Pennsylvania, --- F.3d ---- (2020)
2020 WL 6686120
well-known caution against federal courts mandating new election rules—especially at the last minute.” (citing Purcell,
549 U.S. at 4–5, 127 S.Ct. 5)).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/07/20
Page
20 of 20
Document 59-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1595 Case

19

EXHIBIT 3

1596

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 5 Document 59-3

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

2020 WL 6437668
Only the Westlaw citation is currently available.
United States District Court,
S.D. Texas, Houston Division.

Steven HOTZE, M.D., Wendell
Champion, Hon. Steve Toth,
and Sharon Hemphill, Plaintiffs,
v.
Chris HOLLINS, in his official capacity
as Harris County Clerk, Defendant.
Civil Action No. 4:20-cv-03709
|
Signed 11/02/2020
Attorneys and Law Firms
Jared Ryker Woodfill, Woodfill Law Firm P.C., Houston, TX,
for Plaintiffs.
Richard Warren Mithoff, Jr., Mithoff Law Firm, Kenneth
Royce Barrett, KBR Law, Houston, TX, Charles Stein Siegel,
Waters & Kraus, LLP, Dallas, TX, S. Nasim Ahmad, The
Ahmad Law Firm, The Woodlands, TX, for Defendant.

ORDER
Andrew S. Hanen, United States District Judge
*1 The Court has before it the Motion for Preliminary
Injunction (Doc. No. 3) filed by Plaintiffs Steven Hotze,
M.D., Wendell Champion, Hon. Steve Toth, and Sharon
Hemphill (collectively, “Plaintiffs”), the Response in
Opposition (Doc. No. 22) filed by Defendant Chris Hollins
in his official capacity as Harris County Clerk (hereinafter,
“Defendant”), and various Motions to Intervene filed on
behalf of forty-eight individuals and/or entities. The Court
also has before it amicus curiae briefs filed by the Texas
Coalition of Black Democrats, The Lincoln Project, the
Libertarian Party of Texas, Joseph R. Straus, III, and election
law professor, Benjamin L. Ginsberg.

I.

1597

Due to the time constraints given the issue involved, this
Court cannot issue the formal opinion that this matter
deserves. Consequently, given those confines, this Order
must suffice. The Court first notes that it appreciates the
participation of all counsel involved and the attention each
gave to this important topic on such short notice.
This Court's overall ruling is that the Plaintiffs do not have
standing (as explained below). While this ruling is supported
by general Equal Protection and Election Clause cases, it
is somewhat without precedent with regard to the Plaintiffs
(or Intervenors) who are actual candidates for elected office.
Therefore, the Court, in anticipation of an appeal or petition
for writ of mandamus and knowing that the appellate court
could draw a distinction in that regard and hold that standing
exists, has gone further to indicate what its ruling would have
been in that case.

II.
The Court finds that Plaintiffs lack standing to sue. Federal
courts must determine whether they have jurisdiction before
proceeding to the merits. Steel Co. v. Citizens for Better
Environment, 523 U.S. 83, 94–95 (1998). Article III of
the Constitution limits federal jurisdiction to “Cases” and
“Controversies.” One component of the case or controversy
requirement is standing. Lujan v. Defenders of Wildlife,
504 U.S. 555, 560–61 (1992). The Supreme Court has
repeatedly held that an individual plaintiff raising only a
generalized grievance about government does not meet the
Article III requirement of a case or controversy. Id. at 573–
74. This Court finds that the Plaintiffs here allege only a
“generalized grievance about the conduct of government.”
Lance v. Coffman, 549 U.S. 437, 442 (2007).
The Plaintiffs' lack of a particularized grievance is fatal to
their claim under the Equal Protection Clause. “The rule
against generalized grievances applies with as much force
in the equal protection context as in any other.” U.S. v.
Hays, 515 U.S. 737, 743 (1995). Plaintiffs' general claim that
Harris County's election is being administered differently than
Texas's other counties does not rise to the level of the sort
of particularized injury that the Supreme Court has required
for constitutional standing in elections cases. See id.; Gill v.
Whitford, 138 S. Ct. 1916, 1933 (2018) (no standing in equal
protection case when alleged injury involved “group political
interests” and not “individual legal rights”).

Case
Filedto12/07/20
2 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-3

1

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

*2 Further, it is unclear that individual plaintiffs have
standing to assert claims under the Elections Clause at all.
The Supreme Court has held that individual plaintiffs, like
those here, whose only asserted injury was that the Elections
Clause had not been followed, did not have standing to assert
such a claim. See Lance, 549 U.S. at 442. Conversely, the
Court has held that the Arizona Legislature did have standing
to allege a violation of the Elections Clause as it was “an
institutional plaintiff asserting an institutional injury.” Ariz.
State Legislature v. Ariz. Indep. Redistricting Comm'n, 576
U.S. 787, 802 (2015). In addition, the Supreme Court has
also held plaintiffs had such standing when they were state
senators whose “votes had been completely nullified” by
executive action. Id. at 803 (citing Raines v. Byrd, 521 U.S.
811, 822–23 (1997)). These cases appear to stand for the
proposition that only the state legislature (or a majority of the
members thereof) have standing to assert a violation of the
Elections Clause.
The Court finds that the Plaintiffs here are akin to those
in Lance v. Coffman, in which the Supreme Court held
that private citizens, whose primary alleged injury was that
the Elections Clause was not followed, lacked standing to
bring a claim under the Elections Clause. 549 U.S. at 442.
To summarize the Plaintiffs' primary argument, the alleged
irreparable harm caused to Plaintiffs is that the Texas Election
Code has been violated and that violation compromises the
integrity of the voting process. This type of harm is a
quintessential generalized grievance: the harm is to every
citizen's interest in proper application of the law. Lujan, 504
U.S. at 573–74; Fairchild v. Hughes, 258 U.S. 126, 129
(1922) (holding that the right, possessed by every citizen, to
require that the Government be administered according to the
law does not entitle a private citizen to institute a lawsuit
in federal court). Every citizen, including the Plaintiff who
is a candidate for federal office, has an interest in proper
execution of voting procedure. Plaintiffs have not argued that
they have any specialized grievance beyond an interest in the
integrity of the election process, which is “common to all
members of the public.” United States v. Richardson, 418 U.S.
166, 176–77.1

III.
If the Court had plaintiffs with standing, it would have
denied in part and granted in part the motion for preliminary
injunction.2 A preliminary injunction is an “extraordinary
remedy” that should only be granted if the movant has

1598

“clearly carried the burden of persuasion” on all four factors.
Lake Charles Diesel, Inc. v. Gen. Motors Corp., 328 F.3d
192, 196 (5th Cir. 2003). The movant, however, “need not
prove his case.” Lakedreams v. Taylor, 932 F.2d 1103, 1109
(5th Cir. 1991) (citing H & W Indus. v. Formosa Plastics
Corp., 860 F.2d 172, 179 (5th Cir. 1988)). Before a court
will grant a preliminary injunction, the movants must clearly
show “(1) a substantial likelihood that they will prevail on the
merits, (2) a substantial threat that they will suffer irreparable
injury if the injunction is not granted, (3) that their substantial
injury outweighs the threatened harm to the party whom they
seek to enjoin, and (4) granting the preliminary injunction
will not disserve the public interest.” City of El Cenizo v.
Texas, 890 F.3d 164, 176 (5th Cir. 2018) (quoting Tex. Med.
Providers Performing Abortion Servs. v. Lakey, 667 F.3d 570,
574 (5th Cir. 2012)); see also Winter v. NRDC, 555 U.S. 7,
20 (2008) (“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and that
an injunction is in the public interest.”). “The purpose of a
preliminary injunction is always to prevent irreparable injury
so as to preserve the court's ability to render a meaningful
decision on the merits.” Canal Auth. of Fla. v. Callaway, 489
F.2d 567, 576 (5th Cir. 1974).
*3 This Court finds that there is a difference between
the voting periods presented to it. The merits need to be
analyzed separately by early voting and election day voting.
With respect to the likelihood of success, the Court would
find that the Plaintiffs do not prevail on the element of
likelihood of success with respect to early voting. First, §
85.062 of the Texas Election Code provides for “temporary
branch polling places” during early voting. Tex. Elec. Code. §
85.062. The statute authorizes county election officials to use
“movable structure[s]” as polling places. Id. § 85.062(b). The
Code does not define “structure,” but Black's Law Dictionary
defines the term as: “Any construction, production, or piece
of work artificially built up or composed of parts purposefully
joined together.” Black's Law Dictionary (11th ed. 2019).
The Court finds, after reviewing the record, the briefing, and
considering the arguments of counsel, that the tents used
for drive-thru voting qualify as “movable structures” for
purposes of the Election Code. The Court is unpersuaded
by Plaintiffs' argument that the voters' vehicles, and not
the tents, are the polling places under the drive-thru voting
scheme. Consequently, the Court finds that drive-thru voting
was permissible during early voting. Moreover, the Plaintiffs
failed to demonstrate under the Texas Election Code that an

Case
Filedto12/07/20
3 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-3

2

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

otherwise legal vote, cast pursuant to the instructions of local
voting officials, becomes uncountable if cast in a voting place
that is subsequently found to be non-compliant.
Additionally, the promptness with which one brings an
injunction action colors both the elements of likelihood of
success on the merits and irreparable harm. See Petrella v.
Metro-Goldwyn-Mayer, Inc., 572 U.S. 663, 685 (2014) (“In
extraordinary circumstances, however, the consequences of
a delay in commencing suit may be of sufficient magnitude
to warrant, at the very outset of the litigation, curtailment
of the relief equitably awardable.”); Environmental Defense
Fund, Inc. v. Alexander, 614 F.2d 474, 478 (1980) (“equitable
remedies are not available if granting the remedy would be
inequitable to the defendant because of the plaintiff's long
delay.”). Here, the Court finds that the Plaintiffs did not
act with alacrity. There has been an increasing amount of
conversation and action around the subject of implementing
drive-thru voting since earlier this summer. The Defendant
has argued, and no one has refuted, that discussions were
held with leaders of both major political parties, and, using
that input, a drive-thru voting plan was developed. The Harris
County Commissioners Court approved a budget for drivethru voting in late September. Finally, actual drive-thru voting
began October 13, 2020. At virtually any point, but certainly
by October 12, 2020, Plaintiffs could have filed this action.
Instead, they waited until October 28, 2020 at 9:08 p.m. to
file their complaint and did not file their actual motion for
temporary relief until mid-day on October 30, 2020—the last
day of early voting. The Court finds this delay is critical. It is
especially important in this compact early voting timeframe,
in a particularly tense election, where each day's voting tally
functionally equated to many days or even weeks of early
voting in different situations.
Therefore, this Court finds the Plaintiffs do not prevail on the
first element.
With regard to the second element, “irreparable injury,” this
point is covered more thoroughly in the standing discussion,
but suffice it to say, in response to the Court's question
during oral argument, Plaintiff's counsel described their
injuries as the concern for the voting law to be accurately
enforced and voting to be legal. In response to the Court's
questions, Plaintiffs' Counsel said their irreparable injury
was that the election process was being compromised, and
that it prevents there being uniformity in the manner of
voting throughout Texas. While certainly valid concerns,
those are not the kind of injuries that separate Plaintiffs

1599

from other concerned citizens. Plaintiffs have no evidence of
individualized irreparable injuries.
The one element that the Court finds the Plaintiffs have
prevailed on is the harm to the party defendant. The Court
finds that there would be no harm to Harris County. The only
suggested harm is that the County has spent millions of dollars
to implement drive-thru voting. While these funds may have
been better spent, their loss does not prevail over tens of
thousands of potentially illegal votes. Further, if granted,
the injunction would only require the Defendant to conduct
elections as Harris County has conducted them in the past
without drive-thru voting.
*4 The last element must, like the first, take on extraordinary
significance in this context. That element concerns the public
interest. Plaintiffs argue, correctly, that the public has an
interest in seeing that elections are carried out pursuant to
the Election Code. This is no doubt true; however, this
generalized interest is offset by two somewhat stronger
factors. First, the drive-thru early voting as designed and
implemented is, to this Court's reading, legal as described
above. Second, there have been over 120,000 citizens who
have legally voted utilizing this process. While Plaintiffs
have complained about anecdotal reports of irregularities,
the record reflects that the vast majority were legal voters,
voting as instructed by their local voting officials and voting
in an otherwise legal manner. The only claimed widespread
illegality is the place of voting—a tent outside the polling
place instead of inside the actual building. To disenfranchise
over 120,000 voters who voted as instructed the day before
the scheduled election does not serve the public interest.
Therefore, if the Court had found standing existed, it would
have denied an injunction as to the drive-thru early voting.
The Court finds the issue as to Election Day to cut the opposite
direction. On Election Day, as opposed to early voting, there is
no legislative authorization for movable structures as polling
places. The Election Code makes clear that, on Election Day,
“[e]ach polling place shall be located inside a building.”
Tex. Elec. Code § 43.031(b). The term “building” is not
defined in the Code. Nevertheless, Black's Law Dictionary
defines “building” as: “A structure with walls and a roof,
esp. a permanent structure.” Black's Law Dictionary (11th
ed. 2019). The Court finds, after reviewing the record and
arguments of counsel, that the tents used for drive-thru
voting are not “buildings” within the meaning of the Election
Code. Further, they are not inside, they are clearly outside.

Case
Filedto12/07/20
4 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-3

3

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

Accordingly, if the Plaintiffs had standing, the Court would
have found that the continuation of drive-thru voting on
Election Day violates the Texas Election Code.
It also finds that, unlike in early voting, the Plaintiffs prevail
when one weighs the various elements that underlie the
issuance of an injunction. First, as stated above, the Court
does not find a tent to be a building. Therefore, under the
Election Code it is not a legal voting location. Second, the
Plaintiffs' request for injunctive relief is timely. While it
could and should have been made earlier, it was made days
before the election. The Court would have found that the
Plaintiffs had a likelihood of success. The analysis of the
second element remains the same. With regard to the loss
that the Defendant might suffer, the Court finds this to be
minimal. While it apparently spent millions in implementing
the drive-thru voting system, it had over 120,000 voters use
it—so it is money well-spent. The fact it would not be used
on Election Day does not diminish its benefit. The analysis
of the last element, public interest, swings in favor of the

Plaintiffs. No one should want votes to be cast illegally or at
an illegal polling place. No one has voted yet—so no one is
being disenfranchised. Moreover, for those who are injured or
worried that their health would be compromised should they
be compelled to enter the building to vote, curbside voting is
available under § 64.009 of the Texas Election Code.3 Lastly,
there are very few citizens who would want their vote to be
in jeopardy, so it is incumbent on election officials to conduct
voting in a proper location—not one which the Attorney
General has already said was inappropriate. Consequently,
this Court, had it found that standing existed, would have
granted the injunction prospectively and enjoined drive-thru
voting on Election Day and denied all other relief.
*5 Nevertheless, since it found standing does not exist, this
action is hereby dismissed.
All Citations
Slip Copy, 2020 WL 6437668

Footnotes

1

2

3

This Court finds the answer to this question to be particularly thorny, given that some of the Plaintiffs are actual candidates
who have put in time, effort, and money into campaigning, to say nothing of the blood, sweat, and tears that a modern
campaign for public office entails. This Court would readily understand if some appellate court finds that these Plaintiffs
have standing despite the fact they cannot individualize their damage beyond their rightful feeling that an election should
be conducted lawfully. Neither this Court's research nor the briefing of the parties have brought forth any precedent to
support this concept under either of the two pleaded causes of action based upon claimed violations of Equal Protection
or the “Elections Clause.” Given the timing of this case and the impact that such a ruling might have, this Court finds it
prudent to follow the existing precedent.
The Defendant and Intervenors suggested both in oral argument and in their written presentations that the Court should
abstain under either Pullman, Colorado River, or Rooker-Feldman doctrine. Since standing is jurisdictional and since this
Court is dismissing this action, it need not analyze these arguments. See Railroad Commission of Texas v. Pullman Co.,
312 U.S. 496, 61 S. Ct. 643 (1941); Colorado River Water Conservation Dist. v. U.S., 424 U.S. 800 (1976); Rooker v.
Fidelity Trust Co., 263 U.S. 413 (1923); and District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983).
This Court is quite cognizant of the Texas Supreme Court ruling (in a slightly different context) that fear of contracting
COVID-19 does not establish an exception. In re State, 602 S.W.3d 549 (Tex. 2020).

End of Document

1600

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
5 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-3

4

EXHIBIT 4

1601 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 13 Document 59-4

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

2020 WL 6817513
Only the Westlaw citation is currently available.
United States District Court,
N.D. Georgia, Atlanta Division.

L. LIN WOOD, JR., Plaintiff,
v.
BRAD RAFFENSPERGER, in his official
capacity as Secretary of State of Georgia;
REBECCA N. SULLIVAN, in her official
capacity as Vice Chair of the Georgia State
Election Board; DAVID J. WORLEY,
in his official capacity as a Member
of the Georgia State Election Board;
MATTHEW MASHBURN, in his official
capacity as a Member of the Georgia
State Election Board; and ANH LE, in
her official capacity as a Member of the
Georgia State Election Board, Defendants.
Civil Action No. 1:20-cv-04651-SDG
|
11/20/2020
Steven D. Grimberg, United States District Court Judge
OPINION AND ORDER
*1 This matter is before the Court on a motion for temporary
restraining order filed by Plaintiff L. Lin Wood, Jr. [ECF
6]. For the following reasons, and with the benefit of oral
argument, Wood's motion is DENIED.
I. BACKGROUND
On November 3, 2020, the United States conducted a general
election for various federal, state, and local political offices
(the General Election).1 However, the voting process in
Georgia began in earnest before that date. On September 15,
2020, local election officials began mailing absentee ballots
for the General Election to eligible voters.2 On October 12,
2020, Georgia's in-person, early voting period started.3 This
entire process played out amidst the throes of a global health

pandemic caused by the novel coronavirus SARS-CoV-2—
colloquially known as COVID-19. Due in large part to the
threat posed by COVID-19, an overwhelming number of
Georgia voters—over 1 million of the 5 million votes cast by
November 3—participated in the General Election through
the use of absentee ballots.4
Wood, a registered voter in Fulton County, Georgia,
believes Defendants— the elected officials tasked with
conducting elections in the state—performed their roles
in an unconstitutional manner. As such, Wood initiated
this action on November 13, 2020, ten days after the
conclusion of the General Election.5 On November 16, Wood
filed an Amended Complaint, asserting three claims against
Defendants—all in their official capacities—for violation of:
the First Amendment and the Equal Protection Clause of the
Fourteenth Amendment (Count I); the Electors and Elections
Clause of the Constitution (Count II); and the Due Process
Clause of the Fourteenth Amendment (Count III).6
Counts I and II seek extraordinary relief:
As a result of Defendants’ unauthorized actions and
disparate treatment of defective absentee ballots, this Court
should enter an order, declaration, and/or injunction that
prohibits Defendants from certifying the results of the 2020
general election in Georgia on a statewide basis.
Alternatively, this Court should enter an order, declaration,
and/or injunction prohibiting Defendants from certifying
the results of the General Election which include the
tabulation of defective absentee ballots, regardless of
whether said ballots were cured.
Alternatively, this Court should enter an order, declaration,
and/or injunction that the results of the 2020 general
election in Georgia are defective as a result of the abovedescribed constitutional violations, and that Defendants are
required to cure said deficiencies in a manner consistent
with federal and Georgia law, and without the taint of the
procedures described in the Litigation Settlement.7
For Count III, Wood requests an order, declaration, and/
or injunction requiring Defendants to perform a myriad of
activities, including ordering a second recount prior to the
certification of the election results and permitting monitors
designated by the Republican Party to have special access to
observe all election activity.8

Filedto12/07/20
2 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1602 Case

1

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

*2 On November 17, 2020, Wood filed an emergency
9

motion for a temporary restraining order. Two sets of parties
subsequently sought permission to intervene as defendants
(collectively, the Intervenors): (1) the Democratic Party of
Georgia, Inc. (DPG), DSCC, and DCCC; and (2) the Georgia
State Conference of the NAACP (Georgia NAACP) and
Georgia Coalition for the People's Agenda (GCPA).10 On
November 19, Defendants and Intervenors filed separate
responses in opposition to Wood's motion for a temporary
restraining order.11 The Court held oral argument on Wood's
motion the same day. At the conclusion of the oral argument,
the Court denied Wood's request for a temporary restraining
order. This Order follows and supplements this Court's oral
ruling.
a. Georgia Statutory Law Regarding Absentee Ballots.
Georgia law authorizes any eligible voter to cast his or her
absentee ballot
by mail without providing a reason. O.C.G.A. § 21-2-380(b).
To initiate the absentee-voting process, a prospective voter
must submit an application to the applicable registrar's or
absentee ballot clerk's office. O.C.G.A. § 21-2-381(a)(1)
(A). Upon receipt of a timely absentee ballot request, a
registrar or absentee ballot clerk must enter the date the
office received the application and compare the prospective
voter's information and signature on the application with the
information and signature on file in the registrar's or clerk's
office. O.C.G.A. § 21-2-381(b)(1). If the prospective voter's
eligibility is confirmed, the registrar or clerk must mail the
voter an absentee ballot. O.C.G.A. § 21-2-381(b)(2)(A).
An absentee voter receives two envelopes along with the
absentee ballot; the completed ballot is placed in the smaller
envelope, which is then placed in the larger envelope,
which contains the oath of the elector and a signature
line. O.C.G.A. § 21-2-384(b). Upon receipt of a timely
absentee ballot, a registrar or clerk is required to compare
the identifying information and signature provided in the oath
with the information and signature on file in the respective
office. O.C.G.A. § 21-2-386(a)(1)(B). If the information and
signature appear to match, the registrar or clerk signs his
or her name below the voter's oath. Id. If the information
or signature is missing or does not appear to match, the
registrar or clerk is required to write “Rejected” across the
envelope and provide the reason for the rejection. O.C.G.A.
§ 21-2-386(a)(1)(C). The board of registrars or absentee
ballot clerk is required to “promptly notify” the elector of
the rejection, who then has until the end of the period for

verifying provisional ballots to cure the issue that resulted in
the rejection. Id.
Secretary of State Raffensperger is “the state's chief election
official.”
O.C.G.A. § 21-2-50(b). See also Ga. Op. Att'y Gen. No.
2005-3 (Apr. 15, 2005) (“Just as a matter of sheer volume
and scope, it is clear that under both the Constitution and
the laws of the State the Secretary is the state official with
the power, duty, and authority to manage the state's electoral
system. No other state official or entity is assigned the range
of responsibilities given to the Secretary of State in the area
of elections.”). In this role, Raffensperger is required to,
among other things, “promulgate rules and regulations so
as to obtain uniformity in the practices and proceedings of
superintendents, registrars, deputy registrars, poll officers,
and other officials” and “formulate, adopt, and promulgate
such rules and regulations, consistent with law, as will be
conducive to the fair, legal, and orderly conduct of primaries
and elections.” O.C.G.A. § 21-3-31(1)-(2).
b. The Settlement Agreement
Wood does not challenge the underlying constitutionality
of the absentee ballot framework enacted by the Georgia
General Assembly. The genesis of his claims instead derive
from a lawsuit filed over one year ago by the DPG
against Raffensperger, the then-Members of the Georgia
State Election Board, and the then-Members of the Gwinnett
County Board of Registration and Elections.12 In that action,
the DPG, DSCC, and DCCC challenged several aspects of the
process for rejecting absentee ballots based on a missing or
mismatched signature.13
*3 On March 6, 2020, the DPG, DSCC, DCCC,
Raffensperger, and the Members of the Georgia State
Election Board executed—and filed on the public
docket—a “Compromise Settlement Agreement and
Release” (Settlement Agreement).14 As part of the Settlement
Agreement, Raffensperger agreed to issue an Official Election
Bulletin containing certain procedures for the review of
signatures on absentee ballot envelopes by county election
officials for the March 24, 2020 Presidential Primary Election
and subsequent General Election. In relevant part, the
procedures stated:
When reviewing an elector's signature on the mail-in
absentee ballot envelope, the registrar or clerk must
compare the signature on the mail-in absentee ballot

Filedto12/07/20
3 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1603 Case

2

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

envelope to each signature contained in such elector's
voter registration record in eNet and the elector's signature
on the application for the mail-in absentee ballot. If the
registrar or absentee ballot clerk determines that the
voter's signature on the mail-in absentee ballot envelope
does not match any of the voter's signatures on file in
eNet or on the absentee ballot application, the registrar
or absentee ballot clerk must seek review from two
other registrars, deputy registrars, or absentee ballot
clerks. A mail in absentee ballot shall not be rejected
unless a majority of the registrars, deputy registrars,
or absentee ballot clerks reviewing the signature agree
that the signature does not match any of the voter's
signatures on file in eNet or on the absentee ballot
application. If a determination is made that the elector's
signature on the mail-in absentee ballot envelope does not
match any of the voter's signatures on file in eNet or on the
absentee ballot application, the registrar or absentee ballot
clerk shall write the names of the three elections officials
who conducted the signature review across the face of
the absentee ballot envelope, which shall be in addition
to writing “Rejected” and the reason for the rejection as
required under OCGA 21-2-386(a)(1)(C).15
No entity or individual sought permission to intervene and
challenge the Settlement Agreement. United States District
Judge William M. Ray closed the case on March 9.16
c. The Risk-Limiting Audit
Georgia law provides procedures for conducting a “risklimiting audit” prior to the final certification of an
election. O.C.G.A. § 21-2-498. Such an audit must be
“[c]omplete[d]...in public view.” O.C.G.A. § 21-2-498(c)
(4). And the State Election Board is “authorized to
promulgate rules, regulations, and procedures to implement
and administer” an audit, including “security procedures to
ensure that [the] collection of validly cast ballots is complete,
accurate, and trustworthy throughout the audit.” O.C.G.A. §
21-2-498(d). See also Ga. Comp. R. & Regs. 183-1-15-.04
(2020).
On November 11, 2020, Raffensperger announced a statewide
risk-limiting audit (the Audit)—also referred to as a “full hand
recount”—of all votes cast in the contest for President of the
United States.17 Every county in Georgia was required to
begin the Audit at 9:00 am on November 13 and finish by
11:59 pm on November 18.18 The statewide election results
are set to be certified on November 20.19 Raffensperger

required the Audit to “be open to the public and the press”
and required local election officials to “designate a viewing
area from which members of the public and press may observe
the audit for the purpose of good order and maintaining the
integrity of the audit.”20 The two major political parties—
Democratic and Republican—were permitted “the right to
have one properly designated person as a monitor of the
audit for each ten audit teams that are conducting the audit,
with a minimum of two designated monitors in each county
per party per room where the audit is being conducted.”21
The designated monitors were not required to remain in the
public viewing areas, but were required to comply with the
rules promulgated by Raffensperger and the local election
officials.22 The Audit process differs from that required
by Georgia law for a recount requested by a unsuccessful
candidate following the official certification of votes. See
O.C.G.A. § 21-2-524.
II. LEGAL STANDARD
*4 The standard for the issuance of a temporary restraining
order and a preliminary injunction are identical. Windsor
v. United States, 379 F. App'x 912, 916–17 (11th Cir.
2010). A preliminary injunction is “an extraordinary remedy.”
Bloedorn v. Grube, 631 F.3d 1218, 1229 (11th Cir. 2011).
To obtain the relief he seeks, Wood must affirmatively
demonstrate: “(1) substantial likelihood of success on the
merits; (2) [that] irreparable injury will be suffered unless the
injunction issues; (3) the threatened injury to [him] outweighs
whatever damage the proposed injunction may cause the
opposing party; and (4) if issued, the injunction would not
be adverse to the public interest.” McDonald's Corp. v.
Robertson, 147 F.3d 1301, 1306 (11th Cir. 1998). See also
Siegel v. LePore, 234 F.3d 1163, 1176 (11th Cir. 2000) (“In
this Circuit, a preliminary injunction is an extraordinary and
drastic remedy not to be granted unless the movant clearly
established the burden of persuasion as to each of the four
prerequisites.”).
III. DISCUSSION
Wood's motion essentially boils down to two overarching
claims:
that Defendants violated the Constitution by (1) executing
and enforcing the Settlement Agreement to the extent it
requires different procedures than the Georgia Election Code,
and (2) not permitting designated monitors to have certain
live viewing privileges of the Audit at the county locations.

Filedto12/07/20
4 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1604 Case

3

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

Defendants and Intervenors posit a number of challenges to
Wood's claims.
a. Standing
As a threshold matter, the Court finds Wood lacks standing
to assert these claims. Article III limits federal courts to the
consideration of “Cases” and “Controversies.” U.S. Const.
art. III, § 2, cl. 1. The doctrine of standing “is an essential
and unchanging part of the case-or-controversy requirement
of Article III.” Lujan v. Defs. of Wildlife, 504 U.S. 555,
560 (1992). It is “built on separation-of-powers principles”
and “serves to prevent the judicial process from being used
to usurp the powers of the political branches.” Clapper v.
Amnesty Int'l USA, 568 U.S. 398, 408 (2013). See also
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (“[N]o
principle is more fundamental to the judiciary's proper role in
our system of government than the constitutional limitation
of federal-court jurisdiction to actual cases or controversies.”)
(quoting Raines v. Byrd, 521 U.S. 811, 818 (1997)). The
standing inquiry is threefold: “The litigant must prove (1)
an injury in fact that (2) is fairly traceable to the challenged
action of the defendant and (3) is likely to be redressed by a
favorable decision.” Jacobson v. Fla. Sec'y of State, 974 F.3d
1236, 1245 (11th Cir. 2020) (citing Lujan, 504 U.S. at 561).
Wood must “demonstrate standing for each claim he seeks
to press and for each form of relief that is sought”—Town
of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650
(2017)—and shoulders “the burden of establishing [each]
element[ ].” Lujan, 504 U.S. at 561.
Injury in fact is “the first and foremost of standing's three
elements” and requires Wood to show that he suffered
“an invasion of a legally protected interest that is concrete
and particularized and actual or imminent, not conjectural
or hypothetical.” Spokeo, 136 S. Ct. at 1547–48. To be
“particularized,” the alleged injury “must affect the plaintiff
in a personal and individual way.” Lujan, 504 U.S. at
561 n.1. Wood must demonstrate “a personal stake in the
outcome of the controversy,” as a federal court “is not a
forum for generalized grievances.” Gill v. Whitford, 138 S.
Ct. 1916, 1929 (2018). This requires more than a mere
“keen interest in the issue.” Trump v. Hawaii, 138 S. Ct.
2392, 2416 (2018). The alleged injury must be “distinct
from a generally available grievance about government.”
Gill, 138 S. Ct. at 1923. See also id. at 1929 (explaining
that a person's “right to vote is individual and personal
in nature...[t]hus [only] voters who allege facts showing
disadvantage to themselves as individuals have standing
to sue to remedy that disadvantage”) (quoting Reynolds v.

Sims, 377 U.S. 533, 561 (1964); Baker v. Carr, 369 U.S.
186, 206 (1962)). Claims premised on allegations that “the
law.. has not been followed...[are] precisely the kind of
undifferentiated, generalized grievance about the conduct of
government...[and] quite different from the sorts of injuries
alleged by plaintiffs in voting rights cases where we have
found standing.” Dillard v. Chilton Cnty. Comm'n, 495 F.3d
1324, 1332–33 (11th Cir. 2007) (citing Baker, 369 U.S. at
207–08). See also Lance v. Coffman, 549 U.S. 437, 440–
41 (2007) (“Our refusal to serve as a forum for generalized
grievances has a lengthy pedigree. . . . [A] generalized
grievance that is plainly undifferentiated and common to all
members of the public” is not sufficient for standing).
*5 Wood alleges he has standing because he is “a qualified
registered elector residing in Fulton County, Georgia” who
has “made donations to various Republican candidates on the
ballot for the November 3, 2020 elections, and his interests
are aligned with those of the Georgia Republican Party for the
purposes of the instant lawsuit.”23 These allegations fall far
short of demonstrating that Wood has standing to assert these
claims.
i. The Elections and Electors Clause
Starting with his claim asserted under the Elections and
Electors Clause, Wood lacks standing as a matter of law.
The law is clear: A generalized grievance regarding a state
government's failure to properly follow the Elections Clause
of the Constitution does not confer standing on a private
citizen.24 Lance, 549 U.S. at 442; Bognet, 2020 WL 6686120,
at *6 (“[P]rivate plaintiffs lack standing to sue for alleged
injuries attributable to a state government's violations of the
Elections Clause....Their relief would have no more directly
benefitted them than the public at large.”); Dillard, 495 F.3d
at 1332–33.
ii. Equal Protection
For his equal protection claim, Wood relies on a theory
of vote dilution, i.e., because Defendants allegedly did not
follow the correct processes, invalid absentee votes may have
been cast and tabulated, thereby diluting Wood's in-person
vote. But the same prohibition against generalized grievances
applies to equal protection claims. United States v. Hays,
515 U.S. 737, 743 (1995) (“The rule against generalized
grievances applies with as much force in the equal protection
context as in any other.”) Wood does not differentiate his
alleged injury from any harm felt in precisely the same

Filedto12/07/20
5 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1605 Case

4

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

manner by every Georgia voter. As Wood conceded during
oral argument, under his theory any one of Georgia's more
than seven million registered voters would have standing to
assert these claims. This is a textbook generalized grievance.
Bognet, 2020 WL 6686120, at *12 (“Voter Plaintiffs’ dilution
claim is a paradigmatic generalized grievance that cannot
support standing....Put another way, a vote cast by fraud or
mailed in by the wrong person through mistake, or otherwise
counted illegally, has a mathematical impact on the final
tally and thus on the proportional effect of every vote,
but no single voter is specifically disadvantaged. Such an
alleged dilution is suffered equally by all voters and is not
particularized for standing purposes.”) (internal punctuation
omitted) (collecting cases); Moore v. Circosta, No. 1:20cv-911, 2020 WL 6063332, a *14 (M.D.N.C. Oct. 14, 2020)
(“[T]he notion that a single person's vote will be less valuable
as a result of unlawful or invalid ballots being cast is not a
concrete and particularized injury in fact necessary for Article
III standing.”). See also Citizens for Fair Representation v.
Padilla, 815 F. App'x 120, 123 (9th Cir. 2020) (dismissing
equal protection claim for lack of standing and stating “the
Supreme Court has consistently held that a plaintiff raising
only a generally available grievance...does not state an Article
III case or controversy.”).
iii. Due Process
*6 For the same reasons, Wood also does not have standing
to pursue his due process claim. Wood asserts that various
election monitors appointed by the Republican Party “have
been denied the opportunity to be present throughout the
entire Hand Recount, and when allowed to be present, they
were denied the opportunity to observe the Hand Recount
in any meaningful way.”25 Yet, Wood does not allege that
he attempted to participate as a designated monitor. Nor
does he allege that, on behalf of the Republican Party, he
himself designated monitors who were ultimately denied
access. Wood's broad objection is that Defendants failed to
conduct the Audit fairly and consistently under Georgia law.
This is a generalized grievance.26 Lance, 549 U.S. at 440–
41. See also Nolles v. State Comm. for Reorganization of
Sch. Dists., 524 F.3d 892, 900 (8th Cir. 2008) (voters lacked
standing because substantive due process claim that delay of
implementation of new statute until after referendum election
violated their right to fair election did not allege particularized
injury).
iv. Alignment with Non-Parties

Wood further points to his status as a donor to the Republican
Party whose interests are aligned with that party and its
political candidates to support his standing argument. But
this does not sufficiently differentiate his alleged injury from
that which any voter might have suffered—no matter the
party affiliation. Ostensibly, Wood believes he suffered a
particularized injury because his preferred candidates—to
whom he has contributed money—did not prevail in the
General Election. This argument has been squarely rejected
by the Eleventh Circuit. Jacobson, 974 F.3d at 1247 (“A
candidate's electoral loss does not, by itself, injure those who
voted for the candidate. Voters have no judicially enforceable
interest in the outcome of an election. Instead, they have an
interest in their ability to vote and in their vote being given
the same weight as any other.”) (internal citation omitted).
v. Lack of Relevant Authorities
Finally, the Court notes the futility of Wood's standing
argument is particularly evident in that his sole relied-on
authority—Meek v. Metropolitan Dade County, Florida, 985
F.2d 1471 (11th Cir. 1993)—is no longer good law. The
Eleventh Circuit expressly abrogated its holding in that
case over thirteen years ago. Dillard, 495 F.3d at 1331–32
(“We subsequently upheld Meek's reasoning against repeated
challenges that it was wrongly decided in light of the Supreme
Court's later decisions...[b]ut it is clear that we can no
longer do so in light of the Supreme Court's most recent
pronouncement on voter standing in Lance.”).
During oral argument, Wood additionally pointed to Roe v.
State of Alabama by & through Evans, 43 F.3d 574 (11th
Cir. 1995), but that case does not support Wood's standing
argument. For example, two plaintiffs in Roe were candidates
for a political office decided in the challenged election. Id. at
579. Wood is a private citizen, not a candidate for any elected
office. Moreover, the Eleventh Circuit found particularized
harm in the post-election inclusion of absentee ballots that
had been deemed invalid. Id. at 580. Wood here seeks to
do the opposite—remove validly cast absentee ballots after
completion of the election.
In sum, Wood lacks standing to pursue these claims in the first
instance.
b. The Doctrine of Laches
*7 Even if the Court found Wood possessed standing
to pursue his claims regarding the Settlement Agreement
(Counts I and II), such claims would nonetheless be barred by

Filedto12/07/20
6 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1606 Case

5

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

the doctrine of laches. To establish laches, Defendants must
show “(1) there was a delay in asserting a right or a claim, (2)
the delay was not excusable, and (3) the delay caused [them]
undue prejudice.” United States v. Barfield, 396 F.3d 1144,
1150 (11th Cir. 2005). See also Democratic Exec. Comm.
of Fla. v. Lee, 915 F.3d 1312, 1326 (11th Cir. 2019) (“To
succeed on a laches claim, [defendant] must demonstrate
that [p]laintiffs inexcusably delayed bringing their claim and
that the delay caused it undue prejudice.”). Courts apply
laches in election cases. E.g., Sanders v. Dooly Cnty., Ga.,
245 F.3d 1289, 1291 (11th Cir. 2001) (“[W]e conclude that
the district court did not abuse its discretion in deeming the
claims seeking injunctive relief to be laches-barred.”). See
also, e.g., Detroit Unity Fund v. Whitmer, 819 F. App'x 421,
422 (6th Cir. 2020) (holding district court did not err in finding
that plaintiff's claims regarding deadline for local ballot
initiatives “barred by laches, considering the unreasonable
delay on the part of [p]laintiffs and the consequent prejudice
to [d]efendants”). Cf. Benisek v. Lamone, 138 S. Ct. 1942,
1944 (2018) (“[A] party requesting a preliminary injunction
must generally show reasonable diligence. That is as true in
election law cases as elsewhere.”) (internal citation omitted).
Defendants have established each element of laches.
i. Delay
First, Wood delayed considerably in asserting these claims.
On March 6, 2020, the GDP, DSCC, DCCC, and Defendants
executed the Settlement Agreement, which was entered on
the public docket. It has since been in effect for at least
three elections. Nearly eight months later—and after over
one million voters cast their absentee ballots in the General
Election—Wood challenges the terms of the Settlement
Agreement as unconstitutional. Wood could have, and should
have, filed his constitutional challenge much sooner than he
did, and certainly not two weeks after the General Election.
ii. Excuse
Nor has Wood articulated any reasonable excuse for his
prolonged delay. Wood failed to submit any evidence
explaining why he waited to bring these claims until the
eleventh hour. He instead relies solely on a representation
from his legal counsel during oral argument, without
evidence, that Wood did not vote in any election between
the execution of the Settlement Agreement and the General
Election. Even assuming this proffer to be true, it does not
provide a reasonable justification for the delay. Wood's claims
are constitutional challenges to Defendants’ promulgation
authority under state law. If valid, these claims should not

depend on the outcome of any particular election, to wit,
whether Wood's preferred candidates won or lost. Indeed,
Wood's claims, even assuming his standing for bringing
them could be established, were ripe the moment the parties
executed the Settlement Agreement.
iii. Prejudice
Finally, Defendants, Intervenors, and the public at large
would be significantly injured if the Court were to excuse
Wood's delay. A bedrock principle of election law is that
“lower federal courts should ordinarily not alter the election
rules on the eve of an election.” Republican Nat'l Comm.
v. Democratic Nat'l Comm., 140 S. Ct. 1205, 1207 (2020)
(citing Purcell v. Gonzalez, 549 U.S. 1, 5 (2006)). This
is because a last-minute intervention by a federal court
could “result in voter confusion and consequent incentive
to remain away from the polls.” Purcell, 549 U.S. at 4–5.
See also Democratic Nat'l Comm. v. Wisc. State Legislature,
No. 20A66, 2020 WL 6275871, at *4 (U.S. Oct. 26, 2020)
(Kavanaugh, J., concurring in denial of application to vacate
stay) (“The principle [of judicial restraint] also discourages
last-minute litigation and instead encourages litigants to bring
any substantial challenges to election rules ahead of time,
in the ordinary litigation process. For those reasons, among
others, this Court has regularly cautioned that a federal court's
last-minute interference with state election laws is ordinarily
inappropriate.”).
*8 Underscoring the exceptional nature of his requested
relief, Wood's claims go much further; rather than changing
the rules on the eve of an election, he wants the rules
for the already concluded election declared unconstitutional
and over one million absentee ballots called into question.
Beyond merely causing confusion, Wood's requested relief
could disenfranchise a substantial portion of the electorate
and erode the public's confidence in the electoral process. See
Sw. Voter Registration Educ. Project v. Shelley, 344 F.3d 914,
919 (9th Cir. 2003) (“Interference with impending elections
is extraordinary, and interference with an election after voting
has begun is unprecedented.”) (citation omitted); Arkansas
United v. Thurston, No. 5:20-cv-5193, 2020 WL 6472651, at
*5 (W.D. Ark. Nov. 3, 2020) (“[T]he equities do not favor
intervention where the election is already in progress and the
requested relief would change the rules of the game midplay.”).
Thus, Wood is not entitled to injunctive relief on Counts I and
II for the additional reason that these claims are barred by the
doctrine of laches.

Filedto12/07/20
7 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1607 Case

6

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

c. The Merits of the Request for Injunctive Relief
Even assuming Wood possessed standing, and assuming
Counts I and II are not barred by laches, the Court nonetheless
finds Wood would not be entitled to the relief he seeks.
The Court addresses each required element for a temporary
restraining order in turn.

similarly situated voters, without a corresponding burden on
the fundamental right to vote.” Obama for Am., 697 F.3d at
429 (citing McDonald v. Bd. of Election Comm'rs, 394 U.S.
802, 807–09 (1969)). If a fundamental right is implicated, the
claim is governed by the flexible Anderson/Burdick balancing
test. Burdick, 504 U.S. at 433–35; Anderson v. Celebrezze,
460 U.S. 780, 788 (1983).
*9 Wood's equal protection claim does not fit within this

i. Substantial Likelihood of Success on the Merits
1. Equal Protection (Count I)
Wood argues the execution and enforcement of the Settlement
Agreement burdens his right to vote in contravention of the
Equal Protection Clause because the agreement sets forth
additional voting safeguards not found in the Georgia Election
Code. States retain the power to regulate their own elections.
Burdick v. Takushi, 504 U.S. 428, 433 (1992) (citing U.S.
Const. Art. I, § 4, cl. 1). The Supreme Court has held that:
Common sense, as well as constitutional law, compels the
conclusion that government must play an active role in
structuring elections; as a practical matter, there must be a
substantial regulation of elections if they are to be fair and
honest and if some sort of order, rather than chaos, is to
accompany the democratic processes.
Burdick, 504 U.S. at 433 (citing Storer v. Brown, 415 U.S.
724, 730 (1974)).
Inevitably, most election laws will “impose some burden upon
individual voters.” Burdick, 504 U.S. at 433. But the Equal
Protection Clause only becomes applicable if “a state either
classifies voters in disparate ways...or places restrictions on
the right to vote.” Obama for Am. v. Husted, 697 F.3d 423,
428 (6th Cir. 2012). As recently summarized by one federal
district court:
The Supreme Court has identified two theories of voting
harms prohibited by the Fourteenth Amendment. First,
the Court has identified a harm caused by debasement or
dilution of the weight of a citizen's vote, also referred to
[as] vote dilution....Second, the Court has found that the
Equal Protection Clause is violated where the state, having
once granted the right to vote on equal terms, through later
arbitrary and disparate treatment, values one person's vote
over that of another.
Moore, 2020 WL 6063332, at *12 (citing Bush v. Gore,
531 U.S. 98, 104–05 (2000); Reynolds, 377 U.S. at 554).
A rationale basis standard of review applies if the plaintiff
alleges “that a state treated him or her differently than

framework.27 Wood does not articulate a cognizable harm
that invokes the Equal Protection Clause. For example, to the
extent Wood relies on a theory of disparate treatment, Bush
v. Gore is inapplicable. Defendants applied the Settlement
Agreement in a wholly uniform manner across the entire
state.28 In other words, no voter—including Wood—was
treated any differently than any other voter. E.g., Wise v.
Circosta, 978 F.3d 93, 100 (4th Cir. 2020); Deutsch v. New
York State Bd. of Elections, No. 20 CIV. 8929 (LGS), 2020
WL 6384064, at *6 (S.D.N.Y. Oct. 30, 2020).
Wood fares no better with a vote dilution argument.
According to Wood, his fundamental right to vote was
burdened because the “rules and regulations set forth in the
[Settlement Agreement] created an arbitrary, disparate, and
ad hoc process for processing defective absentee ballots, and
for determining which of such ballots should be ‘rejected,’
contrary to Georgia law.”29 At the starting gate, the additional
safeguards on signature and identification match enacted by
Defendants did not burden Wood's ability to cast his ballot
at all. Wood, according to his legal counsel during oral
argument, did not vote absentee during the General Election.
And the “burden that [a state's] signature-match scheme
imposes on the right to vote.. falls on vote-by-mail and
provisional voters’ fundamental right to vote.” Democratic
Exec. Comm. of Fla. v. Lee, 915 F.3d 1312, 1319 (11th Cir.
2019).
This leaves Wood to speculate that, because the Settlement
Agreement required three ballot clerks—as opposed to just
one—to review an absentee ballot before it could be rejected,
fewer ballots were ultimately rejected, invalid ballots were
tabulated, and his in-person vote was diluted. In support
of this argument, Wood relies on Baker v. Carr, where
the Supreme Court found vote dilution in the context of
apportionment of elected representatives. 369 U.S. at 204–
208. But Wood cannot transmute allegations that state
officials violated state law into a claim that his vote was
somehow weighted differently than others. This theory
has been squarely rejected. Bognet, 2020 WL 6686120, at

Filedto12/07/20
8 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1608 Case

7

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

*11 (“[T]he Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes were
weighted differently. Instead, Plaintiffs advance an Equal
Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal
treatment. And if dilution of lawfully cast ballots by the
‘unlawful’ counting of invalidly cast ballots were a true equalprotection problem, then it would transform every violation
of state election law (and, actually, every violation of every
law) into a potential federal equal-protection claim requiring
scrutiny of the government's ‘interest’ in failing to do more to
stop the illegal activity. That is not how the Equal Protection
Clause works.”).
*10 Even if Wood's claim were cognizable in the equal
protection framework, it is not supported by the evidence
at this stage. Wood's argument is that the procedures in the
Settlement Agreement regarding information and signature
match so overwhelmed ballot clerks that the rate of rejection
plummeted and, ergo, invalid ballots were passed over and
counted. This argument is belied by the record; the percentage
of absentee ballots rejected for missing or mismatched
information and signature is the exact same for the 2018
election and the General Election (.15%).30 This is despite
a substantial increase in the total number of absentee ballots
submitted by voters during the General Election as compared
to the 2018 election.31
In sum, there is insubstantial evidence supporting Wood's
equal protection theory and he has not established a
substantial likelihood of success on the merits as to Count I.
2. Electors and Elections Clauses (Count II)
In relevant part, the Constitution states: “The Times,
Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the
Legislature thereof.” U.S. Const. art. I, § 4, cl. 1. This
provision— colloquially known as the Elections Clause—
vests authority in the states to regulate the mechanics of
federal elections. Foster v. Love, 522 U.S. 67, 69 (1997).
The “Electors Clause” of the Constitution similarly states that
“[e]ach State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of [Presidential] Electors.” U.S.
Const. art. II, § 1, cl. 2.
Wood argues Defendants violated the Elections and Electors
Clauses because the “procedures set forth in the [Settlement
Agreement] for the handling of defective absentee ballots

is not consistent with the laws of the State of Georgia,
and thus, Defendants’ actions...exceed their authority.”32
Put another way, Wood argues Defendants usurped the role
of the Georgia General Assembly—and thereby violated
the United States Constitution—by enacting additional
safeguards regarding absentee ballots not found in the
Georgia Election Code. In support, Wood points to Chief
Justice Rehnquist's concurrence in Bush v. Gore, which states
that “in a Presidential election the clearly expressed intent of
the legislature must prevail.” 531 U.S. at 120 (Rehnquist, C.J.,
concurring).
State legislatures—such as the Georgia General Assembly
—possess the authority to delegate their authority over
elections to state officials in conformity with the Elections
and Electors Clauses. Ariz. State Legislature, 576 U.S. at 816
(“The Elections Clause [ ] is not reasonably read to disarm
States from adopting modes of legislation that place the lead
rein in the people's hands...it is characteristic of our federal
system that States retain autonomy to establish their own
governmental processes.”). See also Corman v. Torres, 287 F.
Supp. 3d 558, 573 (M.D. Pa. 2018) (“The Elections Clause,
therefore, affirmatively grants rights to state legislatures,
and under Supreme Court precedent, to other entities to
which a state may, consistent with the Constitution, delegate
lawmaking authority.”). Cf. Bullock, 2020 WL 5810556, at
*11 (“A survey of the relevant case law makes clear that
the term ‘Legislature’ as used in the Elections Clause is not
confined to a state's legislative body.”).
Recognizing that Secretary Raffensperger is “the state's chief
election official,”33 the General Assembly enacted legislation
permitting him (in his official capacity) to “formulate, adopt,
and promulgate such rules and regulations, consistent with
law, as will be conducive to the fair, legal, and orderly
conduct of primaries and elections.” O.C.G.A. § 21-2-31(2).
The Settlement Agreement is a manifestation of Secretary
Raffensperger's statutorily granted authority. It does not
override or rewrite state law. It simply adds an additional
safeguard to ensure election security by having more than
one individual review an absentee ballot's information and
signature for accuracy before the ballot is rejected. Wood
does not articulate how the Settlement Agreement is not
“consistent with law” other than it not being a verbatim
recitation of the statutory code. Taking Wood's argument at
face value renders O.C.G.A. § 21-2-31(2) superfluous. A
state official—such as Secretary Raffensperger—could never
wield his or her authority to make rules for conducting
elections that had not otherwise already been adopted

Filedto12/07/20
9 of 13Works.
Document 59-4
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1609 Case

8

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

by the Georgia General Assembly. The record in this
case demonstrates that, if anything, Defendants’ actions in
entering into the Settlement Agreement sought to achieve
consistency among the county election officials in Georgia,
which furthers Wood's stated goals of conducting “[f]ree, fair,
and transparent public elections.”34
*11 Wood has not demonstrated a substantial likelihood of
success as to Count II.
3. Due Process (Count III)
Under the Fourteenth Amendment, “[n]o State shall...deny
to any person within its jurisdiction the equal protection of
the laws.” U.S. Const. amend. XIV. The Due Process Clause
has two components: procedural and substantive. DeKalb
Stone, Inc. v. Cnty. of DeKalb, Ga., 106 F.3d 956, 959 (11th
Cir. 1997). Wood alleges that Defendants have “fail[ed]...to
ensure that the Hand Recount is conducted fairly and in
compliance with the Georgia Election Code” by denying
monitors “the opportunity to be present throughout the entire
Hand Recount, and when allowed to be present, they were
denied the opportunity to observe the Hand Recount in any
meaningful way.”35 Although not articulated in his Amended
Complaint or motion for temporary restraining order, Wood
clarified during oral argument that he is pursing both a
procedural and substantive due process claim. Each will be
addressed in turn.
a) Procedural Due Process
A procedural due process claim raises two inquires:
“(1) whether there exists a liberty or property interest
which has been interfered with by the State and (2)
whether the procedures attendant upon that deprivation were
constitutionally sufficient.” Richardson v. Texas Sec'y of
State, 978 F.3d 220, 229 (5th Cir. 2020) (citing Kentucky
Dep't of Corr. v. Thompson, 490 U.S. 454, 460 (1989)).
The party invoking the Due Process Clause's procedural
protections bears the “burden...of establishing a cognizable
liberty or property interest.” Richardson, 978 F.3d at 229
(citing Wilkinson v. Austin, 545 U.S. 209, 221 (2005)). Wood
bases his procedural due process claim on “a vested interest
in being present and having meaningful access to observe
and monitor the electoral process.”36 But Wood does not
articulate how this “vested interest” fits within a recognized,
cognizable interest protected by procedural due process. The
Court is not persuaded that the right to monitor an audit
or vote recount is a liberty or property right secured by

the Constitution. For example, the Eleventh Circuit does
“assume that the right to vote is a liberty interest protected
by the Due Process Clause.” Jones v. Governor of Fla., 975
F.3d 1016, 1048 (11th Cir. 2020). But the circuit court has
expressly declined to extend the strictures of procedural due
process to “a State's election procedures.” New Ga. Project
v. Raffensperger, 976 F.3d 1278, 1282 (11th Cir. 2020) (“The
generalized due process argument that the plaintiffs argued
for and the district court applied would stretch concepts of
due process to their breaking point.”).
More specifically, federal courts have rejected the very
interest Wood claims has been violated, i.e., the right to
observe the electoral process. See, e.g., Republican Party of
Penn. v. Cortes, 218 F. Supp. 3d 396, 408 (E.D. Pa. 2016)
(“[T]here is no individual constitutional right to serve as a
poll watcher...but rather the right is conferred by statute.”);
Donald J. Trump for President, Inc. v. Boockvar, No. 2:20cv-966, 2020 WL 5997680, at *67 (W.D. Pa. Oct. 10, 2020)
(same); Dailey v. Hands, No. 14-423, 2015 WL 1293188,
at *5 (S.D. Ala. Mar. 23, 2015) (“[P]oll watching is not a
fundamental right.”); Turner v. Cooper, 583 F. Supp. 1160,
1162 (N.D. Ill. 1983) (finding no authority “that supports the
proposition that [plaintiff] had a first amendment right to act
as a pollwatcher. Indeed, we would suggest that the state is not
constitutionally required to permit pollwatchers for political
parties and candidates to observe the conduct of elections.”).
Without such an interest, Wood cannot establish a substantial
likelihood of success on the merits as to his procedural due
process claim.
b) Substantive Due Process
*12 Wood's substantive due process claim fares no better.
The types of voting rights covered by the substantive due
process clause are considered narrow. Curry v. Baker, 802
F.2d 1302, 1314 (11th Cir. 1986). Pursuant to the “functional
structure embodied in the Constitution,” a federal court must
not “intervene to examine the validity of individual ballots or
supervise the administrative details of a local election.” Id. In
only “extraordinary circumstances will a challenge to a state
election rise to the level of a constitutional deprivation.” Id.
See also Bennett v. Yoshina, 140 F.3d 1218, 1226 (9th Cir.
1998) (“We have drawn a distinction between garden variety
election irregularities and a pervasive error that undermines
the integrity of the vote. In general, garden variety election
irregularities do not violate the Due Process Clause, even
if they control the outcome of the vote or election.”)
(citation and punctuation omitted) (collecting cases); Duncan
v. Poythress, 657 F.2d 691, 700 (5th Cir. 1981) (“[T]he due

2:20-cv-01771-PP
12/07/20
Page
10 of 13
Document 59-4
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1610 Case

9

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

process clause of the fourteenth amendment prohibits action
by state officials which seriously undermine the fundamental
fairness of the electoral process.”). It is well understood that
“garden variety” election disputes, including “the ordinary
dispute over the counting and marking of ballots” do not
rise to the level of a constitutional deprivation.37 Curry,
802 F.2d at 1314–15. See also Serpentfoot v. Rome City
Comm'n, 426 F. App'x 884, 887 (11th Cir. 2011) (“[Plaintiff's]
allegations show, at most, a single instance of vote dilution
and not an election process that has reached the point of
patent and fundamental unfairness indicative of a due process
violation.”).
Although Wood generally claims fundamental unfairness,
and the declarations and testimony submitted in support
of his motion speculate as to wide-spread impropriety, the
actual harm alleged by Wood concerns merely a “garden
variety” election dispute. Wood does not allege unfairness
in counting the ballots; instead, he alleges that select nonparty, partisan monitors were not permitted to observe the
Audit in an ideal manner. Wood presents no authority, and
the Court finds none, providing for a right to unrestrained
observation or monitoring of vote counting, recounting, or
auditing. Precedent militates against a finding of a due
process violation regarding such an “ordinary dispute over the
counting and marking of ballots.” Gamza v. Aguirre, 619 F.2d
449, 453 (5th Cir. 1980) (“If every state election irregularity
were considered a federal constitutional deprivation, federal
courts would adjudicate every state election dispute.”). Wood
has not satisfied his burden of establishing a substantial
likelihood of success on the merits as to his substantive due
process claim.
ii. Irreparable Harm
Because Wood cannot show a likelihood of success on the
merits, an extensive discussion of the remaining factors
for the issuance of a temporary restraining order is
unnecessary. Obama for Am., 697 F.3d at 436 (“When a party
seeks a preliminary injunction on the basis of a potential
constitutional violation, the likelihood of success on the
merits often will be the determinative factor.”). See also
Bloedorn, 631 F.3d at 1229 (“If [plaintiff] is unable to show
a substantial likelihood of success on the merits, we need
not consider the other requirements.”). Nonetheless, for the

second factor, Plaintiffs must show that “irreparable injury
would result if no injunction were issued.” Siegel, 234 F.3d
at 1175–76 (“A showing of irreparable injury is the sine
qua non of injunctive relief.”). This factor also weighs in
Defendants’ favor. As discussed above, Wood's allegations
are the quintessential generalized grievance. He has not
presented any evidence demonstrating how he will suffer any
particularized harm as a voter or donor by the denial of this
motion. The fact that Wood's preferred candidates did not
prevail in the General Election—for whom he may have voted
or to whom he may have contributed financially—does not
create a legally cognizable harm, much less an irreparable
one. Jacobson, 974 F.3d at 1247.
iii. Balance of the Equities and Public Interest
*13 The Court finds that the threatened injury to Defendants
as state officials and the public at large far outweigh any
minimal burden on Wood. To reiterate, Wood seeks an
extraordinary remedy: to prevent Georgia's certification of
the votes cast in the General Election, after millions of
people had lawfully cast their ballots. To interfere with the
result of an election that has already concluded would be
unprecedented and harm the public in countless ways. See Sw.
Voter Registration Educ. Project, 344 F.3d at 919; Arkansas
United, 2020 WL 6472651, at *5. Granting injunctive relief
here would breed confusion, undermine the public's trust
in the election, and potentially disenfranchise of over one
million Georgia voters. Viewed in comparison to the lack of
any demonstrable harm to Wood, this Court finds no basis in
fact or in law to grant him the relief he seeks.
IV. CONCLUSION
Wood's motion for temporary restraining order [ECF 6] is
DENIED. SO ORDERED this the 20th day of November
2020.
Steven D. Grimberg
United States District Court Judge
All Citations
Slip Copy, 2020 WL 6817513

Footnotes

1

Elections and Voter Registration Calendars, https://sos.ga.gov/index.php/electi

2:20-cv-01771-PP
12/07/20
Page
11 of 13
Document 59-4
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1611 Case

10

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

25
26

27

28
29
30
31

ons/elections_and_voter_registration_calendars (last accessed Nov. 19, 2020).
Id.
Id.
ECF 33-2; ECF 33-6; ECF 33-8.
ECF 1.
ECF 5.
E.g., ECF 5, ¶¶ 81–83, 93–95. The Litigation Settlement—also referred to as the
Settlement Agreement—is discussed infra in Section I.b.
ECF 5, ¶ 106.
ECF 6.
ECF 8; ECF 22.
ECF 31; ECF 34; ECF 39.
Democratic Party of Ga., Inc. v. Raffensperger, 1:19-cv-05028-WMR (ECF 1)
(Compl.).
Id.
Id. at ECF 56 (Settlement Agreement).
Id. (emphasis added).
Id. at ECF 57.
ECF 33-1; ECF 33-2; ECF 33-3.
Id.
Id.
ECF 33-4.
Id.
Id.
ECF 5, ¶ 8.
Although separate constitutional provisions, the Electors Clause and Elections
Clause share “considerably similarity” and may be interpreted in the same manner. Ariz. State Leg. v. Ariz. Indep.
Redistricting Comm'n, 576 U.S. 787, 839 (2015) (Roberts, C.J., dissenting). See also Bognet v. Sec'y Commonwealth of
Pa., No. 20-3214, 2020 WL 6686120, at *7 (3d Cir. Nov. 13, 2020) (applying same test for standing under both Elections
Clause and Electors Clause); Donald J. Trump for President, Inc. v. Bullock, No. CV 20-66-H-DLC, 2020 WL 5810556, at
*11 (D. Mont. Sept. 30, 2020) (“As an initial matter, the Court finds no need to distinguish between the term ‘Legislature’
as it is used in the Elections Clause as opposed to the Electors Clause.”).
ECF 6, at 21.
To the extent Wood attempts to rely on a theory of third party standing, the
Court disagrees; the doctrine is disfavored and Wood has not alleged or proven any of the required elements—that (1) he
“suffered an injury-in-fact that gives [him] a sufficiently concrete interest in the dispute”; (2) he has “a close relationship
to the third party”; and (3) there is “a hindrance to the third party's ability to protect its own interests.” Aaron Private Clinic
Mgmt. LLC v. Berry, 912 F.3d 1330, 1339 (11th Cir. 2019) (internal quotation marks omitted).
The Court notes that, in the Amended Complaint, Wood alludes to issues
caused by Raffensperger's adoption of Ballot Trax—an electronic interface that permits an elector to track his or her
ballot as it is being processed [ECF 5, ¶¶ 44–46]. Wood also alleges harm in that the Settlement Agreement permitted
the DPG to submit “additional guidance and training materials” for identifying a signature mismatch, which Defendants
“agree[d] to consider in good faith” [id. ¶ 47; see also ECF 5-1, ¶ 4]. Wood did not address how these items violated his
constitutional rights—equal protection or otherwise—in either his motion or during oral argument. Therefore, the Court
need not address them at this stage.
Wood concedes as much in the Amended Complaint. See ECF 5, ¶ 25
(alleging the Settlement Agreement “set[ ] forth different standards to be followed by the clerks and registrars in processing
absentee ballots in the State of Georgia.”) (emphasis added).
ECF 6, at 18.
ECF 33-6.
Id.

2:20-cv-01771-PP
12/07/20
Page
12 of 13
Document 59-4
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1612 Case

11

L. LIN WOOD, JR., Plaintiff, v. BRAD RAFFENSPERGER, in his..., Slip Copy (2020)
2020 WL 6817513

32
33
34
35
36
37

ECF 5, ¶ 90.
O.C.G.A. § 21-2-50(b).
ECF 5, ¶ 11.
ECF 6, at 20–21.
ECF 5, ¶ 101.
In contrast, as Defendants note, it would be a violation of the constitutional
rights of the millions of absentee voters who relied on the absentee ballot procedures in exercising their right to vote.
See e.g. Griffin v. Burns, 570 F.2d 1065, 1079 (1st Cir. 1978) (finding disenfranchisement of electorate who voted by
absentee ballot a violation of substantive due process).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/07/20
Page
13 of 13
Document 59-4
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1613 Case

12

EXHIBIT 5

1614

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 8 Document 59-5

Wood v. Raffensperger, --- F.3d ---- (2020)

2020 WL 7094866
Only the Westlaw citation is currently available.
United States Court of Appeals, Eleventh Circuit.

L. Lin WOOD, Jr., Plaintiff-Appellant,
v.
Brad RAFFENSPERGER, in his
official capacity as Secretary of State
of the State of Georgia, Rebecca N.
Sullivan, in her official capacity as Vice
Chair of the Georgia State Election
Board, et al., Defendants-Appellees.
No. 20-14418
|
(December 5, 2020)
Attorneys and Law Firms
Ray S. Smith, III, Smith & Liss LLC, Atlanta, GA, for
Plaintiff-Appellant.
Charlene S. McGowan, Christopher Michael Carr, Russell
D. Willard, Attorney General's Office, Atlanta, GA, for
Defendants-Appellees.
Marc Erik Elias, Amanda Rebecca Callais, Perkins Coie,
LLP, Washington, DC, Kevin J. Hamilton, Perkins Coie, LLP,
Seattle, WA, Susan Coppedge, U.S. Attorney's Office, Halsey
G. Knapp, Jr., Joyce Gist Lewis, Adam M. Sparks, Krevolin
& Horst, LLC, Atlanta, GA, for Intervenors-Appellees.
Jon M. Greenbaum, Lawyers' Committee for Civil Rights
Under Law, Washington, DC, Bryan L. Sells, Law Office
of Bryan L. Sells, LLC, Atlanta, GA, for Amici Curiae
Helen Butler, Georgia State Conference of the NAACP,
Georgia Coalition for the Peoples' Agenda, James Woodall,
and Melvin Ivey.
Amanda J. Beane, Perkins Coie, LLP, Seattle, WA, Emily
Rachel Brailey, Alexi M. Velez, Perkins Coie, LLP,
Washington, DC, Gillian Kuhlmann, Perkins Coie, LLP, Los
Angeles, CA, Matthew Joseph Mertens, Perkins Coie, LLP,
Portland, OR, for Service.
Appeal from the United States District Court for the Northern
District of Georgia, D.C. Docket No. 1:20-cv-04651-SDG

1615

Before WILLIAM PRYOR, Chief Judge, JILL PRYOR and
LAGOA, Circuit Judges.
Opinion
WILLIAM PRYOR, Chief Judge:
*1 This appeal requires us to decide whether we have
jurisdiction over an appeal from the denial of a request for
emergency relief in a post-election lawsuit. Ten days after the
presidential election, L. Lin Wood Jr., a Georgia voter, sued
state election officials to enjoin certification of the general
election results, to secure a new recount under different rules,
and to establish new rules for an upcoming runoff election.
Wood alleged that the extant absentee-ballot and recount
procedures violated Georgia law and, as a result, his federal
constitutional rights. After Wood moved for emergency relief,
the district court denied his motion. We agree with the
district court that Wood lacks standing to sue because he
fails to allege a particularized injury. And because Georgia
has already certified its election results and its slate of
presidential electors, Wood's requests for emergency relief
are moot to the extent they concern the 2020 election. The
Constitution makes clear that federal courts are courts of
limited jurisdiction, U.S. Const. art. III; we may not entertain
post-election contests about garden-variety issues of vote
counting and misconduct that may properly be filed in state
courts. We affirm.

I. BACKGROUND
Secretary of State Brad Raffensperger is the “chief election
official” of Georgia. Ga. Code Ann. § 21-2-50(b). He
manages the state system of elections and chairs the State
Election Board. Id. § 21-2-30(a), (d). The Board has the
authority to promulgate rules and regulations to ensure
uniformity in the practices of county election officials and,
“consistent with law,” to aid “the fair, legal, and orderly
conduct of primaries and elections.” Id. § 21-2-31(1)–
(2). The Board may also publish and distribute to county
election officials a compilation of Georgia's election laws
and regulations. Id. § 21-2-31(3). Many of these laws and
regulations govern absentee voting.
Any voter in Georgia may vote by absentee ballot. Id. §
21-2-380(b). State law prescribes the procedures by which
a voter may request and submit an absentee ballot. Id. §§
21-2-381; 21-2-384; 21-2-385. The ballot comes with an oath,

Case
Filedto12/07/20
2 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

1

Wood v. Raffensperger, --- F.3d ---- (2020)

which the voter must sign and return with his ballot. Id.
§ 21-2-385(a). State law also prescribes the procedures for
how county election officials must certify and count absentee
ballots. Id. § 21-2-386(a). It directs the official to “compare
the identifying information on the oath with the information
on file” and “compare the signature or mark on the oath with
the signature or mark” on file. Id. § 21-2-386(a)(1)(B). If
everything appears correct, the official certifies the ballot. Id.
But if there is a problem, such as a signature that does not
match, the official is to “write across the face of the envelope
‘Rejected.’ ” Id. § 21-2-386(a)(1)(C). The government must
then notify the voter of this rejection, and the voter may cure
the problem. Id.
In November 2019, the Democratic Party of Georgia,
the Democratic Senatorial Campaign Committee, and the
Democratic Congressional Campaign Committee challenged
Georgia's absentee ballot procedures as unconstitutional
under the First and Fourteenth Amendments. They sued
Secretary Raffensperger and members of the Board for
declaratory and injunctive relief. Secretary Raffensperger and
the Board maintained that the procedures were constitutional,
but they agreed to promulgate regulations to ensure uniform
practices across counties. In March 2020, the parties entered
into a settlement agreement and dismissed the suit.
*2 In the settlement agreement, Secretary Raffensperger
and the Board agreed to issue an Official Election Bulletin
regarding the review of signatures on absentee ballots. The
Bulletin instructed officials to review the voter's signature
with the following process:
If the registrar or absentee ballot clerk determines that the
voter's signature on the mail-in absentee ballot envelope
does not match any of the voter's signatures on file ...,
the registrar or absentee ballot clerk must seek review
from two other registrars, deputy registrars, or absentee
ballot clerks. A mail-in absentee ballot shall not be rejected
unless a majority of the registrars, deputy registrars, or
absentee ballot clerks reviewing the signature agree that the
signature does not match any of the voter's signatures on
file ....
Secretary Raffensperger and the Board also agreed to train
county election officials to follow this process.
This procedure has been in place for at least three elections
since March, including the general election on November 3,
2020. Over one million Georgians voted by absentee ballot
in the general election. No one challenged the settlement
agreement until the filing of this action. By then, the general

1616

election returns had been tallied and a statewide hand recount
of the presidential election results was underway.
On November 13, L. Lin Wood Jr. sued Secretary
Raffensperger and the members of the Board in the district
court. Wood alleged that he sued “in his capacity as a private
citizen.” He is a registered voter in Fulton County, Georgia,
and a donor to various 2020 Republican candidates. His
amended complaint alleged that the settlement agreement
violates state law. As a result, he contends, it violates
the Election Clause of Article I; the Electors Clause of
Article II; and the Equal Protection Clause of the Fourteenth
Amendment. See U.S. Const. art. I, § 4, cl. 1; id. art. II, § 1, cl.
2; id. amend. XIV, § 1. Wood also alleged that irregularities
in the hand recount violated his rights under the Due Process
Clause of the Fourteenth Amendment. Id. amend. XIV, § 1.
State law requires that such recounts be done in public view,
and it permits the Board to promulgate policies that facilitate
recounting. Ga. Code Ann. § 21-2-498(c)(4), (d). Secretary
Raffensperger directed county election officials to designate
viewing areas for members of the public and the news media
to observe the recount. He also permitted the Democratic and
Republican Parties to designate special recount monitors.
Wood alleged that officials ignored their own rules and
denied Wood and President Donald Trump's campaign
“meaningful access to observe and monitor the electoral
process.” Although Wood did not personally attempt to
observe or monitor the recount, he alleged that Secretary
Raffensperger and the Board violated his “vested interest in
being present and having meaningful access to observe and
monitor the electoral process to ensure that it is properly
administered ... and ... otherwise free, fair, and transparent.”
Wood submitted two affidavits from volunteer monitors. One
monitor stated that she was not allowed to enter the counting
area because there were too many monitors already present,
and she could not be sure from a distance whether the recount
was accurate. The other explained that the counting was
hard for her to follow and described what she thought were
possible tabulation errors.
*3 Wood moved for extraordinary relief. He asked that
the district court take one of three steps: prohibit Georgia
from certifying the results of the November election; prevent
it from certifying results that include “defective absentee
ballots, regardless of whether said ballots were cured”; or
declare the entire election defective and order the state to fix

Case
Filedto12/07/20
3 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

2

Wood v. Raffensperger, --- F.3d ---- (2020)

the problems caused by the settlement agreement. He also
sought greater access for Republican election monitors, both
at a new hand recount of the November election and in a
runoff election scheduled for January 5, 2021.
Wood's lawsuit faced a quickly approaching obstacle: Georgia
law requires the Secretary of State to certify its general
election results by 5:00 p.m. on the seventeenth day after
Election Day. Ga. Code Ann. § 21-2-499(b). And it requires
the Governor to certify Georgia's slate of presidential electors
by 5:00 p.m. on the eighteenth day after Election Day. Id.
Secretary Raffensperger's deadline was November 20, and
Governor Brian Kemp had a deadline of November 21.
To avoid these deadlines, Wood moved to bar officials from
certifying the election results until a court could consider
his lawsuit. His emergency motion reiterated many of the
requests from his amended complaint, including requests for
changes to the procedures for the January runoff. He also
submitted additional affidavits and declarations in support of
his motion.
The district court held a hearing on November 19 to consider
whether it should issue a temporary restraining order. It heard
from Wood, state officials, and two groups of intervenors.
Wood also introduced testimony from Susan Voyles, a
poll manager who participated in the hand recount. Voyles
described her experience during the recount. She recalled that
one batch of absentee ballots felt different from the rest, and
that that batch favored Joe Biden to an unusual extent. At
the end of the hearing, the district court orally denied Wood's
motion.
On November 20, the district court issued a written opinion
and order that explained its denial. It first ruled that Wood
lacked standing because he had alleged only generalized
grievances, instead of injuries that affected him in a personal
and individual way. It next explained that, even if Wood
had standing, the doctrine of laches prevented him from
challenging the settlement agreement now: he could have
sued eight months earlier, yet he waited until two weeks after
the election. Finally, it explained why Wood would not be
entitled to a temporary restraining order even if the district
court could reach the merits of his claims. On the same day,
Secretary Raffensperger certified the results of the general
election and Governor Kemp certified a slate of presidential
electors.

1617

II. STANDARD OF REVIEW
“We are required to examine our jurisdiction sua sponte,
and we review jurisdictional issues de novo.” United States
v. Lopez, 562 F.3d 1309, 1311 (11th Cir. 2009) (citation
omitted).

III. DISCUSSION
This appeal turns on one of the most fundamental principles
of the federal courts: our limited jurisdiction. Federal
courts are not “constituted as free-wheeling enforcers of
the Constitution and laws.” Initiative & Referendum Inst. v.
Walker, 450 F.3d 1082, 1087 (10th Cir. 2006) (en banc).
As the Supreme Court “ha[s] often explained,” we are
instead “courts of limited jurisdiction.” Home Depot U.S.A.,
Inc. v. Jackson, ––– U.S. ––––, 139 S. Ct. 1743, 1746,
204 L.Ed.2d 34 (2019) (internal quotation marks omitted).
Article III of the Constitution establishes that our jurisdiction
—that is, our judicial power—reaches only “Cases” and
“Controversies.” U.S. Const. art. III, § 2. Absent a justiciable
case or controversy between interested parties, we lack the
“power to declare the law.” Steel Co. v. Citizens for a Better
Env't, 523 U.S. 83, 94, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998).
*4 When someone sues in federal court, he bears the burden
of proving that his suit falls within our jurisdiction. Kokkonen
v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377, 114
S.Ct. 1673, 128 L.Ed.2d 391 (1994). Wood had the choice
to sue in state or federal court. Georgia law makes clear that
post-election litigation may proceed in a state court. Ga. Code
Ann. §§ 21-2-499(b), 21-2-524(a). But Wood chose to sue in
federal court. In doing so, he had to prove that his suit presents
a justiciable controversy under Article III of the Constitution.
See Flast v. Cohen, 392 U.S. 83, 95, 88 S.Ct. 1942, 20 L.Ed.2d
947 (1968) (listing examples of problems that preclude our
jurisdiction). He failed to satisfy this burden.
We divide our discussion in two parts. We first explain why
Wood lacks standing to sue. We then explain that, even if he
had standing, his requests to recount and delay certification
of the November election results are moot. Because this case
is not justiciable, we lack jurisdiction. Id. And because we
lack the power to entertain this appeal, we will not address
the other issues the parties raise.

Case
Filedto12/07/20
4 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

3

Wood v. Raffensperger, --- F.3d ---- (2020)

A. Wood Lacks Standing Because He Has Not Been Injured
in a Particularized Way.
Standing is a threshold jurisdictional inquiry: the elements of
standing are “an indispensable part of the plaintiff's case.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 561, 112 S.Ct.
2130, 119 L.Ed.2d 351 (1992). To prove standing, Wood
“must prove (1) an injury in fact that (2) is fairly traceable
to the challenged action of the defendant and (3) is likely to
be redressed by a favorable decision.” Jacobson v. Fla. Sec'y
of State, 974 F.3d 1236, 1245 (11th Cir. 2020). If he cannot
satisfy these requirements, then we may not decide the merits
of his appeal. Steel Co., 523 U.S. at 94, 118 S.Ct. 1003.
Wood lacks standing because he fails to allege the “first
and foremost of standing's three elements”: an injury in
fact. Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct.
1540, 1547, 194 L.Ed.2d 635 (2016) (alteration adopted)
(internal quotation marks omitted). An injury in fact is “an
invasion of a legally protected interest that is both concrete
and particularized and actual or imminent, not conjectural
or hypothetical.” Trichell v. Midland Credit Mgmt., Inc., 964
F.3d 990, 996 (11th Cir. 2020) (internal quotation marks
omitted). Wood's injury is not particularized.
Wood asserts only a generalized grievance. A particularized
injury is one that “affect[s] the plaintiff in a personal
and individual way.” Spokeo, 136 S. Ct. at 1548 (internal
quotation marks omitted). For example, if Wood were a
political candidate harmed by the recount, he would satisfy
this requirement because he could assert a personal, distinct
injury. Cf. Roe v. Alabama ex rel. Evans, 43 F.3d 574,
579 (11th Cir. 1995). But Wood bases his standing on his
interest in “ensur[ing that] ... only lawful ballots are counted.”
An injury to the right “to require that the government be
administered according to the law” is a generalized grievance.
Chiles v. Thornburgh, 865 F.2d 1197, 1205–06 (11th Cir.
1989) (alteration adopted) (internal quotation marks omitted).
And the Supreme Court has made clear that a generalized
grievance, “no matter how sincere,” cannot support standing.
Hollingsworth v. Perry, 570 U.S. 693, 706, 133 S.Ct. 2652,
186 L.Ed.2d 768 (2013).
A generalized grievance is “undifferentiated and common
to all members of the public.” Lujan, 504 U.S. at 575, 112
S.Ct. 2130 (internal quotation marks omitted). Wood cannot
explain how his interest in compliance with state election
laws is different from that of any other person. Indeed,

1618

he admits that any Georgia voter could bring an identical
suit. But the logic of his argument sweeps past even that
boundary. All Americans, whether they voted in this election
or whether they reside in Georgia, could be said to share
Wood's interest in “ensur[ing] that [a presidential election] is
properly administered.”
*5 Wood argues that he has two bases for standing, but
neither satisfies the requirement of a distinct, personal injury.
He first asserts that the inclusion of unlawfully processed
absentee ballots diluted the weight of his vote. To be sure, vote
dilution can be a basis for standing. Cf. Jacobson, 974 F.3d at
1247–48. But it requires a point of comparison. For example,
in the racial gerrymandering and malapportionment contexts,
vote dilution occurs when voters are harmed compared to
“irrationally favored” voters from other districts. See Baker
v. Carr, 369 U.S. 186, 207–08, 82 S.Ct. 691, 7 L.Ed.2d
663 (1962). By contrast, “no single voter is specifically
disadvantaged” if a vote is counted improperly, even if the
error might have a “mathematical impact on the final tally
and thus on the proportional effect of every vote.” Bognet
v. Sec'y Commonwealth of Pa., ––– F.3d ––––, ––––, 2020
WL 6686120, at *12 (3d Cir. Nov. 13, 2020) (internal
quotation marks omitted). Vote dilution in this context is
a “paradigmatic generalized grievance that cannot support
standing.” Id. (internal quotation marks omitted).
Wood's second theory—that Georgia “value[d] one person's
vote over that of another” through “arbitrary and disparate
treatment”—fares no better. He argues that Georgia treats
absentee voters as a “preferred class” compared to those who
vote in person, both by the terms of the settlement agreement
and in practice. In his view, all voters were bound by law
before the settlement agreement, but the rules for absentee
voting now run afoul of the law, while in-person voters remain
bound by the law. And he asserts that in practice Georgia
has favored absentee voters because there were “numerous
irregularities” in the processing and recounting of absentee
ballots. Setting aside the fact that “[i]t is an individual voter's
choice whether to vote by mail or in person,” Bognet, –––
F.3d at ––––, 2020 WL 6686120, at *15, these complaints
are generalized grievances. Even if we assume that absentee
voters are favored over in-person voters, that harm does not
affect Wood as an individual—it is instead shared identically
by the four million or so Georgians who voted in person
this November. “[W]hen the asserted harm is ... shared in
substantially equal measure by ... a large class of citizens,” it
is not a particularized injury. Warth v. Seldin, 422 U.S. 490,
499, 95 S.Ct. 2197, 45 L.Ed.2d 343 (1975). And irregularities

Case
Filedto12/07/20
5 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

4

Wood v. Raffensperger, --- F.3d ---- (2020)

in the tabulation of election results do not affect Wood
differently from any other person. His allegation, at bottom,
remains “that the law ... has not been followed.” Dillard v.
Chilton Cnty. Comm'n, 495 F.3d 1324, 1332 (11th Cir. 2007)
(quoting Lance v. Coffman, 549 U.S. 437, 442, 127 S.Ct. 1194,
167 L.Ed.2d 29 (2007)).
Wood's attempts to liken his injury to those we have found
sufficient in other appeals fall short. In Common Cause/
Georgia v. Billups, we ruled that “[r]equiring a registered
voter either to produce photo identification to vote in person
or to cast an absentee or provisional ballot is an injury
sufficient for standing.” 554 F.3d 1340, 1351–52 (11th Cir.
2009). But the injury there was the burden of producing
photo identification, not the existence of separate rules for inperson and absentee voters. Id. And the burden to produce
photo identification affected each voter in a personal way. For
example, some plaintiffs in Common Cause alleged that they
“would be required to make a special trip” to obtain valid
identification “that is not required of voters who have driver's
licenses or passports.” Id. at 1351 (internal quotation marks
omitted). By contrast, even Wood agrees that he is affected
by Georgia's alleged violations of the law in the same way as
every other Georgia voter. “This injury is precisely the kind
of undifferentiated, generalized grievance that the Supreme
Court has warned must not be countenanced.” Dillard, 495
F.3d at 1335 (internal quotation marks omitted).
Roe v. Alabama ex rel. Evans, 43 F.3d 574, also does not
support Wood's argument for standing. In Roe, we ruled that
the post-election inclusion of previously excluded absentee
ballots would violate the substantive-due-process rights of
Alabama voters and two political candidates. Id. at 579–81.
But no party raised and we did not address standing in Roe,
so that precedent provides no basis for Wood to establish
standing. Cf. Lewis v. Casey, 518 U.S. 343, 352 n.2, 116
S.Ct. 2174, 135 L.Ed.2d 606 (1996) (noting that in cases
where “standing was neither challenged nor discussed ...
the existence of unaddressed jurisdictional defects has no
precedential effect”). And Wood's purported injury is far
more general than the voters’ injury in Roe. The voters
in Roe bore individual burdens—to obtain notarization or
witness signatures if they wanted to vote absentee—that
state courts post-election retroactively permitted other voters
to ignore. Roe, 43 F.3d at 580–81. In contrast, Georgia
applied uniform rules, established before the election, to all
voters, who could choose between voting in person or by
absentee ballot, and Wood asserts that the effect of those rules

1619

harmed the electorate collectively. That alleged harm is not a
particularized injury.
*6 Wood suggested in his amended complaint that his status
as a donor contributed to standing and aligned his interests
with those of the Georgia Republican Party. But he forfeited
this argument when he failed to raise it in his opening brief.
Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324, 1335
(11th Cir. 2004); see also Nat'l All. for the Mentally Ill v.
Bd. of Cnty. Comm'rs, 376 F.3d 1292, 1296 (11th Cir. 2004)
(ruling standing claims forfeited for failure to comply with
the Federal Rules of Appellate Procedure). And the donor
argument fails on its own terms. True, a donor can establish
standing based on injuries that flow from his status as a donor.
See, e.g., Wilding v. DNC Servs. Corp., 941 F.3d 1116, 1125
(11th Cir. 2019). But donors, like voters, “have no judicially
enforceable interest in the outcome of an election.” Jacobson,
974 F.3d at 1246. Nor does a donation give the donor a legally
cognizable interest in the proper administration of elections.
Any injury to Wood based on election irregularities must flow
from his status as a voter, unrelated to his donations. And that
fact returns him to the stumbling block of particularization.
“[T]he ‘injury in fact’ test requires ... that the party seeking
review be himself among the injured.” Lujan, 504 U.S.
at 563, 112 S.Ct. 2130 (internal quotation marks omitted).
Wood's allegations suggest that various nonparties might have
a particularized injury. For example, perhaps a candidate
or political party would have standing to challenge the
settlement agreement or other alleged irregularities. Or
perhaps election monitors would have standing to sue if they
were denied access to the recount. But Wood cannot place
himself in the stead of these groups, even if he supports
them. Cf. Glanton ex rel. ALCOA Prescription Drug Plan
v. AdvancePCS Inc., 465 F.3d 1123, 1127 (9th Cir. 2006)
(explaining that “associational standing ... does not operate
in reverse,” so a member cannot represent an association).
He is at most a “concerned bystander.” Koziara v. City of
Casselberry, 392 F.3d 1302, 1305 (11th Cir. 2004) (internal
quotation marks omitted). So he is not “entitled to have the
court[s] decide the merits of [his] dispute.” Warth, 422 U.S.
at 498, 95 S.Ct. 2197.

B. Wood's Requested Relief Concerning the 2020 General
Election Is Moot.
Even if Wood had standing, several of his requests for relief
are barred by another jurisdictional defect: mootness. We are

Case
Filedto12/07/20
6 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

5

Wood v. Raffensperger, --- F.3d ---- (2020)

“not empowered to decide moot questions.” North Carolina v.
Rice, 404 U.S. 244, 246, 92 S.Ct. 402, 30 L.Ed.2d 413 (1971)
(internal quotation marks omitted). “An issue is moot when
it no longer presents a live controversy with respect to which
the court can give meaningful relief.” Christian Coal. of Fla.,
Inc. v. United States, 662 F.3d 1182, 1189 (11th Cir. 2011)
(alteration rejected) (internal quotation marks omitted). And
an issue can become moot at any stage of litigation, even if
there was a live case or controversy when the lawsuit began.
Id. at 1189–90.
Wood asked for several kinds of relief in his emergency
motion, but most of his requests pertained to the 2020
election results. He moved the district court to prohibit either
the certification of the election results or certification that
included the disputed absentee ballots. He also asked the
district court to order a new hand recount and to grant
Republican election monitors greater access during both
the recount and the January runoff election. But after the
district court denied Wood's motion, Secretary Raffensperger
certified the election results on November 20. And Governor
Kemp certified the slate of presidential electors later that day.
Because Georgia has already certified its results, Wood's
requests to delay certification and commence a new recount
are moot. “We cannot turn back the clock and create a world
in which” the 2020 election results are not certified. Fleming
v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015). And it is not
possible for us to delay certification nor meaningful to order
a new recount when the results are already final and certified.
Cf. Tropicana Prods. Sales, Inc. v. Phillips Brokerage Co.,
874 F.2d 1581, 1582 (11th Cir. 1989) (“[A]n appeal from the
denial of a motion for preliminary injunction is mooted when
the requested effective end-date for the preliminary injunction
has passed.”). Nor can we reconstrue Wood's previous request
that we temporarily prohibit certification into a new request
that we undo the certification. A district court “must first have
the opportunity to pass upon [every] issue,” so we may not
consider requests for relief made for the first time on appeal.
S.F. Residence Club, Inc. v. 7027 Old Madison Pike, LLC, 583
F.3d 750, 755 (11th Cir. 2009).
*7 Wood's arguments reflect a basic misunderstanding of
what mootness is. He argues that the certification does not
moot anything “because this litigation is ongoing” and he
remains injured. But mootness concerns the availability of
relief, not the existence of a lawsuit or an injury. Fla. Wildlife
Fed'n, Inc. v. S. Fla. Water Mgmt. Dist., 647 F.3d 1296, 1304
(11th Cir. 2011). So even if post-election litigation is not

1620

always mooted by certification, see, e.g., Siegel v. LePore,
234 F.3d 1163, 1172–73 (11th Cir. 2000) (en banc), Wood's
particular requests are moot. Wood is right that certification
does not moot his requests for relief concerning the 2021
runoff—although Wood's lack of standing still forecloses our
consideration of those requests—but the pendency of other
claims for relief cannot rescue the otherwise moot claims. See,
e.g., Adler v. Duval Cnty. Sch. Bd., 112 F.3d 1475, 1478–79,
1481 (11th Cir. 1997) (instructing the district court to dismiss
moot claims but resolving other claims on the merits). Wood
finally tells us that President Trump has also requested a
recount, but that fact is irrelevant to whether Wood's requests
remain live.
Nor does any exception to mootness apply. True, we often
review otherwise-moot election appeals because they are
“capable of repetition yet evading review.” ACLU v. The Fla.
Bar, 999 F.2d 1486, 1496 (11th Cir. 1993) (internal quotation
marks omitted). We may apply this exception when “(1) the
challenged action was in its duration too short to be fully
litigated prior to its cessation or expiration, and (2) there
was a reasonable expectation that the same complaining party
would be subjected to the same action again.” Nat'l Broad. Co.
v. Commc'ns Workers of Am., 860 F.2d 1022, 1023 (11th Cir.
1988) (quoting Weinstein v. Bradford, 423 U.S. 147, 149, 96
S.Ct. 347, 46 L.Ed.2d 350 (1975)). But we will not apply this
exception if there is “some alternative vehicle through which
a particular policy may effectively be subject to” complete
review. Bourgeois v. Peters, 387 F.3d 1303, 1308 (11th Cir.
2004).
The “capable of repetition yet evading review” exception
does not save Wood's appeal because there is no “reasonable
expectation” that Wood will again face the issues in this
appeal. Based on the posture of this appeal, the challenged
action is the denial of an emergency injunction against the
certification of election results. See Fleming, 785 F.3d at
446 (explaining that whether the issues in an interlocutory
appeal are “capable of repetition, yet evading review” is
a separate question from whether the issues in the overall
lawsuit are capable of doing so). That denial is the decision we
would review but for the jurisdictional problems. But Wood
cannot satisfy the requirement that there be a “reasonable
expectation” that he will again seek to delay certification.
Wood does not suggest that this situation might recur. Cf. FEC
v. Wis. Right To Life, Inc., 551 U.S. 449, 463–64, 127 S.Ct.
2652, 168 L.Ed.2d 329 (2007). And we have no reason to
think it would: he is a private citizen, so the possibility of a

Case
Filedto12/07/20
7 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

6

Wood v. Raffensperger, --- F.3d ---- (2020)

recurrence is purely theoretical. Cf. Hall v. Sec'y, Ala., 902
F.3d 1294, 1305 (11th Cir. 2018).

We AFFIRM the denial of Wood's motion for emergency
relief.
All Citations

IV. CONCLUSION

End of Document

1621

--- F.3d ----, 2020 WL 7094866
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/07/20
8 of 8 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

59-5

7

EXHIBIT 6

1622 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 28 Document 59-6

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

2020 WL 6063332
Editor's Note: Additions are indicated by Text and deletions
by Text .
Only the Westlaw citation is currently available.
United States District Court, M.D. North Carolina.

Timothy K. MOORE, et al., Plaintiffs,
v.
Damon CIRCOSTA, et al., Defendants,
and
North Carolina Alliance for Retired
Americans, et al., Defendant-Intervenors.
Patsy J. Wise, et al., Plaintiffs,
v.
The North Carolina State Board
of Elections, et al., Defendants,
and
North Carolina Alliance for Retired
Americans, et al., Defendant-Intervenors.
1:20CV911
|
1:20CV912
|
Signed 10/14/2020
Synopsis
Background: State legislative leaders and individual
registered voters sued the executive director and members
of the North Carolina State Board of Elections (SBE),
seeking an injunction against enforcement and distribution
of memoranda issued by SBE pertaining to absentee voting.
In a second case, individual voters, a campaign committee,
national political parties, and two Members of the U.S. House
of Representatives also sought an injunction against the
same memoranda. Advocacy group for retirees and individual
registered voters who were plaintiffs in a related state court
action that resulted in a consent judgment intervened in both
cases. Plaintiffs moved for preliminary injunction.

plaintiffs lacked Article III standing to bring vote-dilution
claim;
individual plaintiffs who had already cast their absentee
ballots by mail had standing to raise equal protection claims;
plaintiffs demonstrated a likelihood of success on the merits
of their equal protection claims against the mail-in ballot
witness-requirement cure procedure and extension of mail-in
ballot receipt deadline;
plaintiffs demonstrated a likelihood of irreparable injury on
their equal protection claims against witness-requirement
cure procedure and extension of mail-in ballot receipt
deadline;
balance of equities weighed heavily against preliminary
injunction, and thus district court would deny injunctive
relief; and
SBE exceeded its statutory authority and emergency powers
when it entered into consent agreement and eliminated
witness requirements for mail-in ballots.
Motion denied.
Attorneys and Law Firms
David H. Thompson, Peter A. Patterson, Nicole Jo Moss,
Cooper & Kirk, PLLC, Washington, DC, Nathan Andrew
Huff, Phelps Dunbar LLP, Raleigh, NC, for Plaintiffs.
Alexander McClure Peters, Sarah G. Boyce, Terence Steed,
North Carolina Department of Justice, Raleigh, NC, for
Defendants.
Burton Craige, Patterson Harkavy LLP, Raleigh, NC, Marc
E. Elias, Lalitha D. Madduri, Perkins Coie, LLP, Uzoma N.
Nkwonta, Kirkland & Ellis, LLP, Washington, DC, Narendra
K. Ghosh, Patterson Harkavy, LLP, Chapel Hill, NC, for
Defendant-Intervenors.

MEMORANDUM OPINION AND ORDER
OSTEEN, JR., District Judge

Holdings: The District Court, William L. Osteen, J., held that:

*1 Presently before this court are two motions for a
preliminary injunction in two related cases.

Filedto12/07/20
2 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1623 Case

1

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

In the first case, Moore v. Circosta, No. 1:20CV911
(“Moore”), Plaintiffs Timothy K. Moore and Philip E.
Berger (together, “State Legislative Plaintiffs”), Bobby
Heath, Maxine Whitley, and Alan Swain (together,
“Moore Individual Plaintiffs”) seek an injunction against
the enforcement and distribution of several Numbered
Memoranda issued by the North Carolina State Board of
Elections pertaining to absentee voting. (Moore v. Circosta,
No. 1:20CV911, Mot. for Prelim. Inj. and Mem. in Supp.
(“Moore Pls.’ Mot.”) (Doc. 60).)
In the second case, Wise v. North Carolina State Board
of Elections, No. 1:20CV912 (“Wise”), Plaintiffs Patsy
J. Wise, Regis Clifford, Samuel Grayson Baum, and
Camille Annette Bambini (together, “Wise Individual
Plaintiffs”), Donald J. Trump for President, Inc. (“Trump
Campaign”), U.S. Congressman Gregory F. Murphy and
U.S. Congressman Daniel Bishop (together, “Candidate
Plaintiffs”), Republican National Committee (“RNC”),
National Republican Senatorial Committee (“NRSC”),
National Republican Congressional Committee (“NRCC”),
and North Carolina Republican Party (“NCRP”) seek an
injunction against the enforcement and distribution of the
same Numbered Memoranda issued by the North Carolina
State Board of Elections at issue in Moore. (Wise Pls.’ Mem.
in Supp. of Mot. to Convert the Temp. Restraining Order into
a Prelim. Inj. (“Wise Pls.’ Mot.”) (Doc. 43).)
By this order, this court finds Plaintiffs have established a
likelihood of success on their Equal Protection challenges
with respect to the State Board of Elections’ procedures for
curing ballots without a witness signature and for the deadline
extension for receipt of ballots. This court believes the
unequal treatment of voters and the resulting Equal Protection
violations as found herein should be enjoined. Nevertheless,
under Purcell and recent Supreme Court orders relating to
Purcell, this court is of the opinion that it is required to find
that injunctive relief should be denied at this late date, even
in the face of what appear to be clear violations.
I. BACKGROUND
A. Parties
1. Moore v. Circosta (1:20CV911)
State Legislative Plaintiffs Timothy K. Moore and Philip
E. Berger are the Speaker of the North Carolina House

of Representatives and the President Pro Tempore of the
North Carolina Senate, respectively. (Moore v. Circosta, No.
1:20CV911, Compl. for Declaratory and Injunctive Relief
(“Moore Compl.”) (Doc. 1) ¶¶ 7-8.) Individual Plaintiffs
Bobby Heath and Maxine Whitley are registered North
Carolina voters who voted absentee by mail and whose
ballots have been accepted by the State Board of Elections on
September 21, 2020, and September 17, 2020, respectively.
(Id. ¶¶ 9-10.) Plaintiff Alan Swain is a resident of Wake
County, North Carolina, who is running as a Republican
candidate to represent the State's Second Congressional
District. (Id. ¶ 11.)
Executive Defendants include Damon Circosta, Stella
Anderson, Jeff Carmon, III, and Karen Brinson Bell are
members of the State Board of Elections (“SBE”). (Id.
¶¶ 12-15.) Executive Defendant Karen Brinson Bell is the
Executive Director of SBE. (Id. ¶ 15.)
*2 Intervenor-Defendants North Carolina Alliance for
Retired Americans, Barker Fowler, Becky Johnson, Jade
Jurek, Rosalyn Kociemba, Tom Kociemba, Sandra Malone,
and Caren Rabinowitz (“Alliance Intervenors”) are plaintiffs
in the related state court action in Wake County Superior
Court. (Moore v. Circosta, No. 1:20CV911 (Doc. 28) at
15.)1 Barker Fowler, Becky Johnson, Jade Jurek, Rosalyn
Kociemba, Tom Kociemba, Sandra Malone, and Caren
Rabinowitz are individual voters who are concerned they will
be disenfranchised by Defendant SBE's election rules, (id.),
and North Carolina Alliance for Retired Americans (“NC
Alliance”) is an organization “dedicated to promoting the
franchise and ensuring the full constitutional rights of its
members ....” (Id.)

2. Wise v. N.C. State Bd. of Elections (1:20CV912)
Individual Plaintiffs Patsy J. Wise, Regis Clifford, Camille
Annette Bambini, and Samuel Grayson Baum are registered
voters in North Carolina. (Wise v. N.C. State Bd. of Elections,
No. 1:20CV912, Compl. for Declaratory and Injunctive
Relief (“Wise Compl.”) (Doc. 1) ¶¶ 25-28.) Wise has already
cast her absentee ballot for the November 3, 2020 election
by mail, “in accordance with statutes, including the Witness
Requirement, enacted by the General Assembly.” (Id. ¶ 25.)
Plaintiffs Clifford, Bambini, and Baum intend to vote in the
November 3, 2020 election and are “concern[ed] that [their]
vote[s] will be negated by improperly cast or fraudulent
ballots.” (Id. ¶¶ 26-28.)

Filedto12/07/20
3 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1624 Case

2

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

Plaintiff Trump Campaign represents the interests of
President Donald J. Trump, who is running for reelection. (Id. ¶¶ 29-30.) Together, Candidate Plaintiffs Trump
Campaign, U.S. Congressman Daniel Bishop, and U.S.
Congressman Gregory F. Murphy are candidates who will
appear on the ballot for re-election in the November 3, 2020
general election. (Id. ¶¶ 29-32.)
Plaintiff RNC is a national political party, (id. ¶¶ 33-36),
that seeks to protect “the ability of Republican voters to
cast, and Republican candidates to receive, effective votes
in North Carolina elections and elsewhere,” (id. ¶ 37), and
avoid diverting resources and spending significant amounts
of resources educating voters regarding confusing changes in
election rules, (id. ¶ 38).
Plaintiff NRSC is a national political party committee that
is exclusively devoted to electing Republican candidates to
the U.S. Senate. (Id. ¶ 40.) Plaintiff NRCC is the national
organization of the Republican Party dedicated to electing
Republicans to the U.S. House of Representatives. (Id. ¶
41.) Plaintiff NRCP is a North Carolina state political party
organization that supports Republican candidates running in
North Carolina elections. (Id. ¶¶ 44-45.)
Executive Defendant North Carolina SBE is the agency
responsible for the administration of the elections laws of the
State of North Carolina. (Id. ¶ 46.) As in Moore, included as
Executive Defendants are Damon Circosta, Stella Anderson,
Jeff Carmon, III, and Karen Brinson Bell of the North
Carolina SBE. (Id. ¶¶ 47-50.)
Alliance Intervenors from Moore are also IntervenorDefendants in Wise. (1:20CV912 (Doc. 22).)
B. Factual Background
1. This Court's Decision in Democracy
On August 4, 2020, this court issued an order in a third related
case, Democracy North Carolina v. North Carolina State
Board of Elections, No. 1:20CV457, ––– F.Supp.3d ––––,
2020 WL 4484063 (M.D.N.C. Aug. 4, 2020) (“the August
Democracy Order”), that “left the One-Witness Requirement
in place, enjoined several rules related to nursing homes that
would disenfranchise Plaintiff Hutchins, and enjoined the
rejection of absentee ballots unless the voter is provided due

process.” (Id. at ––––, 2020 WL 4484063, at *1.) As none of
the parties appealed that order, the injunctive relief is still in
effect.

2. Release of the Original Memo 2020-19
*3 In response to the August Democracy Order, on August
21, 2020, SBE officials released guidance for “the procedure
county boards must use to address deficiencies in absentee
ballots.” (Numbered Memo 2020-19 (“Memo 2020-19” or
“the original Memo”) (Moore v. Circosta, No. 1:20CV911,
Moore Compl. (Doc. 1) Ex. 3 – NC State Bd. of Elections
Mem. (“Original Memo 2020-19”) (Doc. 1-4) at 2.) This
guidance instructed county boards regarding multiple topics.
First, it instructed county election boards to “accept [a] voter's
signature on the container-return envelope if it appears to be
made by the voter ... [a]bsent clear evidence to the contrary,”
even if the signature is illegible. (Id.) The guidance clarified
that “[t]he law does not require that the voter's signature on
the envelope be compared with the voter's signature in their
registration record,” as “[v]erification of the voter's identity
is completed through the witness requirement.” (Id.)
Second, the guidance sorted ballot deficiencies into two
categories: curable and uncurable deficiencies. (Id. at 3.)
Under this version of Memo 2020-19, a ballot could be
cured via voter affidavit alone if the voter failed to sign
the certification or signed in the wrong place. (Id.) A ballot
error could not be cured, and instead, was required to be
spoiled, in the case of all other listed deficiencies, including
a missing signature, printed name, or address of the witness;
an incorrectly placed witness or assistant signature; or an
unsealed or re-sealed envelope. (Id.) Counties were required
to notify voters in writing regarding any ballot deficiency –
curable or incurable - within one day of the county identifying
the defect and to enclose either a cure affidavit or a new ballot,
based on the type of deficiency at issue. (Id. at 4.)
In the case of an incurable deficiency, a new ballot could
be issued only “if there [was] time to mail the voter a new
ballot ... [to be] receive[d] by Election Day.” (Id. at. 3) If a
voter who submitted an uncurable ballot was unable to receive
a new absentee ballot in time, he or she would have the option
to vote in person on Election Day. (Id. at 4.)
If the deficiency was curable by a cure affidavit, the guidance
stated that the voter must return the cure affidavit by no later
than 5 p.m. on Thursday, November 12, 2020. (Id.)

Filedto12/07/20
4 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1625 Case

3

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

3. Rescission of Numbered Memo 2020-19
The State began issuing ballots on September 4, 2020,
marking the beginning of the election process. (Wise, No.
1:20CV912, Wise Pls.’ Mot. (Doc. 43).) On September
11, 2020, SBE directed counties to stop notifying voters
of deficiencies in their ballot, as advised in Memo
2020-19, pending further guidance from SBE. (Moore, No.
1:20CV911, Moore Pls.’ Mot. (Doc. 60) Ex. 3, Democracy
Email Chain (Doc. 60-4) at 6.)

4. Revision of Numbered Memo 2020-19
On September 22, over two weeks after the State began
issuing ballots, SBE issued a revised Numbered Memo
2020-19, which set forth a variety of new policies not
implemented in the original Memo 2020-19. (Numbered
Memo 2020-19 (“the Revised Memo” or “Revised Memo
2020-19”) (Moore v. Circosta, No. 1:20CV911 (Doc. 36)
Ex. 3, Revised Numbered Memo 2020-19 (“Revised Memo
2020-19”) (Doc. 36-3).) In subsequent litigation in Wake
County Superior Court, SBE advised the court that both
the original Memo 2020-19 and the Revised Memo were
issued “to ensure full compliance with the injunction entered
by Judge Osteen.” (Moore v. Circosta, No. 1:20CV911,
Exec. Defs.’ Br. in Supp. of Joint Mot. for Entry of
Consent Judgment (“SBE State Court Br.”) (Doc. 68-1)
at 15.) Moreover, on September 28, 2020, during a status
conference with a district court in the Eastern District of
North Carolina prior to transfer to this court, counsel for
Defendant SBE stated that Defendant SBE issued the revised
Memo 2020-19 “in order to comply with Judge Osteen's
preliminary injunction in the Democracy N.C. action in the
Middle District.” (Moore v. Circosta, No. 1:20CV911, Order
Granting Mot. for Temp. Restraining Order (“TRO”) (Doc.
47) at 9.) At that time, counsel for SBE indicated that they
had not yet submitted the Revised Memo 2020-19 to this
court, “but that it was on counsel's list to get [it] done
today.” (Id.) (internal quotations omitted.) On September 28,
2020, Defendant SBE filed the Revised Memo 2020-19 with
this court in the Democracy action. (Democracy N.C. v. N.C.
State Bd. of Elections, No. 1:20CV457 (Doc. 143-1).)
*4 The revised guidance modified which ballot deficiencies
fell into the curable and uncurable categories. Unlike the
original Memo 2020-19, the Revised Memo advised that

ballots missing a witness or assistant name or address, as well
as ballots with a missing or misplaced witness or assistant
signature, could be cured via voter certification. (Moore v.
Circosta, No. 1:20CV911, Revised Memo 2020-19 (Doc.
36-3) at 3.) According to the revised guidance, the only
deficiencies that could not be cured by certification, and thus
required spoliation, were where the envelope was unsealed
or where the envelope indicated the voter was requesting a
replacement ballot. (Id. at 4.)
The cure certification in Revised 2020-19 required voters to
sign and affirm the following:
I am submitting this affidavit to correct a problem with
missing information on the ballot envelope. I am an eligible
voter in this election and registered to vote in [name]
County, North Carolina. I solemnly swear or affirm that I
voted and returned my absentee ballot for the November 3,
2020 general election and that I have not voted and will not
vote more than one ballot in this election. I understand that
fraudulently or falsely completing this affidavit is a Class
I felony under Chapter 163 of the North Carolina General
Statutes.
(Moore v. Circosta, No. 1:20CV911 (Doc. 45-1) at 34.)
The revised guidance also extended the deadline for civilian
absentee ballots to be received to align with that for military
and overseas voters. (Moore v. Circosta, No. 1:20CV911,
Revised Memo 2020-19 (Doc. 36-3) at 5.) Under the original
Memo 2020-19, in order to be counted, civilian absentee
ballots must have been received by the county board office by
5 p.m. on Election Day, November 3, 2020, or if postmarked,
by Election Day, by 5:00 p.m. on November 6, 2020. (Moore
v. Circosta, No. 1:20CV911, Original Memo 2020-19 (Doc.
1-4) at 5 (citing N.C. Gen. Stat. § 163-231(b)).) Under the
Revised Memo 2020-19, however, a late civilian ballot would
be counted if postmarked on or before Election Day and
received by 5:00 p m. on November 12, 2020. (Moore v.
Circosta, No. 1:20CV911, Revised Memo 2020-19 (Doc.
36-3) at 5.) This is the same as the deadline for military and
overseas voters, as indicated in the Original Memo 2020-19.
(Id.)2

5. Numbered Memoranda 2020-22 and 2020-23
SBE issued two other Numbered Memoranda on September
22, 2020, in addition to Revised Numbered Memo 2020-19.

Filedto12/07/20
5 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1626 Case

4

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

First, SBE issued Numbered Memo 2020-22, the purpose
of which was to further define the term postmark used in
Numbered Memo 2020-19. (Wise, No. 1:20CV912, Wise
Compl. (Doc. 1), Ex. 3, N.C. State Bd. of Elections Mem.
(“Memo 2020-22”) (Doc. 1-3) at 2.) Numbered Memo
2020-22 advised that although “[t]he postmark requirement
for ballots received after Election Day is in place to prohibit
a voter from learning the outcome of an election and then
casting their ballot.... [T]he USPS does not always affix a
postmark to a ballot return envelope.” (Id.) Recognizing that
SBE now offers “BallotTrax,” a system in which voters and
county boards can track the status of a voter's absentee ballot,
SBE said “it is possible for county boards to determine when
a ballot was mailed even if does not have a postmark.” (Id.)
Moreover, SBE recognized that commercial carriers offer
tracking services that document when a ballot was deposited
with the commercial carrier. (Id.) For these reasons, the new
guidance stated that a ballot would be considered postmarked
by Election Day if it had a postmark, there is information in
BallotTrax, or “another tracking service offered by the USPS
or a commercial carrier, indicat[es] that the ballot was in
the custody of USPS or the commercial carrier on or before
Election Day.” (Id. at 3.)
*5 Second, SBE issued Numbered Memo 2020-23, which
provides “guidance and recommendations for the safe, secure,
and controlled in-person return of absentee ballots.” (Wise,
No. 1:20CV912, Wise Compl. (Doc. 1), Ex. 4, N.C. State
Bd. of Elections Mem. (“Memo 2020-23”) (Doc. 1-4) at
2.) Referring to N.C. Gen. Stat. § 163-226.3(a)(5),3 which
prohibits any person other than the voter's near relative or
legal guardian to take possession of an absentee ballot of
another voter for delivery or for return to a county board
of elections, (id.), Numbered Memo 2020-23 confirms that
“an absentee ballot may not be left in an unmanned drop
box.” (Id.) The guidance reminds county boards that they
must keep a written log when any person returns an absentee
ballot in person, which includes the name of the individual
returning the ballot, their relationship to the voter, the ballot
number, and the date it was received. (Id. at 3.) If the
individual who drops off the ballot is not the voter, their
near relative, or legal guardian, the log must also record their
address and phone number. (Id.)
At the same time, the guidance advises county boards that
“[f]ailure to comply with the logging requirement, or delivery
or an absentee ballot by a person other than the voter, the
voter's near relative, or the voter's legal guardian, is not
sufficient evidence in and of itself to establish that the voter

did not lawfully vote their ballot.” (Id. at 3.) Instead, the
guidance advises the county board that they “may ... consider
the delivery of a ballot ... in conjunction with other evidence
in determining whether the ballot is valid and should be
counted.” (Id. at 4.)

6. Consent Judgment in North Carolina Alliance for
Retired Americans v. North Carolina State Bd. of
Elections
On August 10, 2020, NC Alliance, the Defendant-Intervenors
in the two cases presently before this court, filed an action
against SBE in North Carolina's Wake County Superior
Court challenging, among other voting rules, the witness
requirement for mail-in absentee ballots and rejection of mailin absentee ballots that are postmarked by Election Day but
delivered to county boards more than three days after the
election. (Moore v Circosta, No. 1:20CV911, SBE State Court
Br. (Doc. 68-1) at 15.)
On August 12, 2020, Philip Berger and Timothy Moore,
Plaintiffs in Moore, filed a notice of intervention as of right
in the state court action and became parties to that action
as intervenor-defendants on behalf of the North Carolina
General Assembly. (Id. at 16.)
On September 22, 2020, SBE and NC Alliance filed a Joint
Motion for Entry of a Consent Judgment with the superior
court. (Id.) Philip Berger and Timothy Moore were not aware
of this “secretly-negotiated” Consent Judgment, (Wise Pls.’
Mot. (Doc. 43) at 6), until the parties did not attend a
previously scheduled deposition, (Democracy v. N.C. Bd. of
Elections, No. 1:20CV457 (Doc. 168) at 73.)
Among the terms of the Consent Judgment, SBE agreed to
extend the deadline for receipt of mail-in absentee ballots
mailed on or before Election Day to nine days after Election
Day, to implement the cure process established in Revised
Memo 2020-19, and to establish separate mail in absentee
ballot “drop off stations” at each early voting site and county
board of elections office which were to be staffed by county
board officials. (Moore v. Circosta, No. 1:20CV911, SBE
State Court Br. (Doc. 68-1) at 16.)
In its filings with the state court, SBE frequently cited this
court's decision in Democracy as a reason for why the Wake
County Superior Court Judge should accept the Consent
Judgment. SBE argued that a cure procedure for deficiencies

Filedto12/07/20
6 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1627 Case

5

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

related to the witness requirement were necessary because
“[w]itness requirements for absentee ballots have been shown
to be, broadly speaking, disfavored by the courts,” (id. at
26), and that “[e]ven in North Carolina, a federal court held
that the witness requirement could not be implemented as
statutorily authorized without a mechanism for voters to have
adequate notice of and [an opportunity to] cure materials [sic]
defects that might keep their votes from being counted,” (id. at
27). SBE argued that, “to comply with the State Defendants’
understanding of the injunction entered by Judge Osteen,
the State Board directed county boards of elections not to
disapprove any ballots until a new cure procedure that would
comply with the injunction could be implemented,” (id. at 30),
and that ultimately, the cure procedure introduced in Revised
Memo 2020-19 as part of the consent judgment would comply
with this injunction. (Id.) SBE indicated that it had notified
the federal court of the cure mechanism process on September
22, 2020, (id.), although this court was not made aware of
the cure procedure until September 28, 2020, (Democracy
N.C. v. N.C. State Bd. of Elections, No. 1:20CV457 (Doc.
143-1)), the day before the processing of absentee ballots
was scheduled to begin on September 29, 2020, (Moore v.
Circosta, No. 20CV911 Transcript of Oral Argument (“Oral
Argument Tr.”)(Doc. 70) at 109.)
*6 On October 2, 2020, the Wake County Superior Court
entered the Stipulation and Consent Judgment. (Moore v.
Circosta, No. 1:20CV911, State Court Consent Judgment
(Doc. 45-1).) Among its recitals, which Defendant SBE
drafted and submitted to the judge as is customary in state
court, (Oral Argument Tr. (Doc. 70) at 91), the Wake County
Superior Court noted this court's preliminary injunction in
Democracy, finding,
WHEREAS, on August 4, 2020, the United States District
Court for the Middle District of North Carolina enjoined
the State Board from “the “disallowance or rejection ...
of absentee ballots without due process as to those ballots
with a material error that is subject to remediation.”
Democracy N.C. v. N.C. State Bd. of Elections, No.
1:20-cv-00457-WO-JLW [––– F.Supp.3d ––––, 2020 WL
4484063] (M.D.N.C. Aug. 4, 2020) (Osteen, J.). ECF 124
at 187. The injunction is to remain in force until the State
Board implements a cure process that provides a voter
with “notice and an opportunity to be heard before an
absentee ballot with a material error subject to remediation
is disallowed or rejected.” Id.
(State Court Consent Judgment (Doc. 45-1) at 6.)4

7. Numbered Memoranda 2020-27, 2020-28, and 2020-29
In addition to the Numbered Memoranda issued on September
22, 2020, as part of the consent judgment in the state court
case, SBE has issued three additional numbered memoranda.
First, on October 1, 2020, SBE issued Numbered Memo
2020-27, which was issued in response to this court's order
in Democracy regarding the need for parties to attend a status
conference to discuss Numbered Memo 2020-19. (Moore v.
Circosta, No. 1:20CV911 (Doc. 40-2) at 2.) The guidance
advises county boards that this court did not find Numbered
Memo 2020-19:
“consistent with the Order entered by this Court on August
4, 2020,” and indicates that its preliminary injunction order
should “not be construed as finding that the failure of a
witness to sign the application and certificate as a witness
is a deficiency which may be cured with a certification after
the ballot has been returned.”
(Id.) “In order to avoid confusion while related matters are
pending in a number of courts,” the guidance advises that
“[c]ounty boards that receive an executed absentee containerreturn envelope with a missing witness signature shall take
no action as to that envelope.” (Id.) In all other respects,
SBE stated that Revised Numbered Memo 2020-19 remains
in effect. (Id.)
Second, on October 4, 2020, SBE issued Numbered Memo
2020-28, which states that both versions of Numbered
Memo 2020-19, as well as Numbered Memoranda 2020-22,
2020-23, and 2020-27 “are on hold until further notice”
following the temporary restraining order entered in the
instant cases on October 3, 2020. (Moore v. Circosta,
No. 1:20CV911 (Doc. 60-5) at 2.) Moreover, the guidance
reiterated that “[c]ounty boards that receive an executed
absentee container-return envelope with a deficiency shall
take no action as to that envelope,” including sending a
cure notification or reissuing the ballot. (Id. at 2-3.) Instead,
the guidance directs county boards to store envelopes with
deficiencies in a secure location until further notice. (Id. at
3.) If, however, a county board had previously issued a ballot
and the second envelope is returned without any deficiencies,
the guidance permits the county board to approve the second
ballot. (Id.)
*7 Finally, on October 4, 2020, SBE issued Numbered
Memo 2020-29, which states that it provides “uniform

Filedto12/07/20
7 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1628 Case

6

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

guidance and further clarification on how to determine if
the correct address can be identified if the witness's or
assistant's address on an absentee container-return envelope
is incomplete. (Wise, No. 1:20CV912 (Doc. 43-5).) First, the
guidance clarifies that if a witness or assistant does not print
their address, the envelope is deficient. (Id. at 2.) Second, the
guidance states that failure to list a witness's ZIP code does
not require a cure; a witness or assistant's address may be a
post office box or other mailing address; and if the address
is missing a city or state, but the county board can determine
the correct address, the failure to include this information
does not invalidate the container-return envelope. (Id.) Third,
if both the city and ZIP code are missing, the guidance
directs staff to determine whether the correct address can be
identified. (Id.) If they cannot be identified, then the envelope
is deficient. (Id.)
C. Procedural History
On September 26, 2020, Plaintiffs in Moore filed their action
in the United States District Court for the Eastern District of
North Carolina. (Moore Compl. (Doc. 1).) Plaintiffs in Wise
also filed their action in the United States District Court for
the Eastern District of North Carolina on September 26, 2020.
(Wise Compl. (Doc. 1).)
Alliance Intervenors filed a Motion to Intervene as
Defendants in Moore on September 30, 2020, (Moore v.
Circosta, No. 1:20CV911 (Doc. 27)), and in Wise on October
2, 2020, (Wise, No. 1:20CV912 (Doc. 21)). This court granted
Alliance Intervenors’ Motion to Intervene on October 8,
2020. (Moore v. Circosta, No. 1:20CV911 (Doc. 67); Wise,
No. 1:20CV912 (Doc. 49).)
The district court in the Eastern District of North Carolina
issued a temporary restraining order in both cases on October
3, 2020, and transferred the actions to this court for this
court's “consideration of additional or alternative injunctive
relief along with any such relief in Democracy North Carolina
v. North Carolina State Board of Elections ....” (Moore
v. Circosta, 1:20CV911, TRO (Doc. 47) at 2; Wise, No.
1:20CV912 (Doc. 25) at 2.)
On October 5, 2020, this court held a Telephone
Conference, (Moore v. Circosta, No. 1:20CV911, Minute
Entry 10/05/2020; Wise, No. 1:20CV912, Minute Entry
10/05/2020), and issued an order directing the parties to
prepare for a hearing on the temporary restraining order and/
or a preliminary injunction and to submit additional briefing,
(Moore v. Circosta, No. 1:20CV911 (Doc. 51); Wise, No.

1:20CV912 (Doc. 30)). On October 6, 2020, Plaintiffs in
Wise filed a Memorandum in Support of Plaintiffs’ Motion to
Convert the Temporary Restraining Order into a Preliminary
Injunction, (Wise Pls.’ Mot. (Doc. 43)), and Plaintiffs in
Moore filed a Motion for a Preliminary Injunction and
Memorandum in Support of Same, (Moore Pls.’ Mot. (Doc.
60)). Defendant SBE filed a response to Plaintiffs’ motions
in both cases on October 7, 2020. (Moore v. Circosta, No.
1:20CV911, State Defs.’ Resp. to Pls.’ Mot. for Prelim.
Inj. (“SBE Resp.”) (Doc. 65); Wise, No. 1:20CV912 (Doc.
45).) Alliance Intervenors also filed a response to Plaintiffs’
motions in both cases on October 7, 2020. (Moore v. Circosta,
No. 1:20CV911, Proposed Intervenors’ Mem. in Opp'n to
Pls.’ Mot. for a Prelim. Inj. (“Alliance Resp.”) (Doc. 64);
Wise, No. 1:20CV912 (Doc. 47).)5
This court held oral arguments on October 8, 2020, in which
all of the parties in these two cases presented arguments
with respect to Plaintiffs’ motions for a preliminary
injunction. (Moore v. Circosta, No. 1:20CV911, Minute
Entry 10/08/2020; Wise, No. 1:20CV912, Minute Entry
10/08/2020.)
*8 This court has federal question jurisdiction over these
cases under 28 U.S.C. § 1331. This matter is ripe for
adjudication.
D. Preliminary Injunction Standard of Review
“A plaintiff seeking a preliminary injunction must establish
that he is likely to succeed on the merits, that he is likely to
suffer irreparable harm in the absence of preliminary relief,
that the balance of equities tips in his favor, and that an
injunction is in the public interest.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 20, 129 S.Ct. 365, 172 L.Ed.2d
249 (2008). Such an injunction “is an extraordinary remedy
intended to protect the status quo and prevent irreparable
harm during the pendency of a lawsuit.” Di Biase v. SPX
Corp., 872 F.3d 224, 230 (4th Cir. 2017).
II. ANALYSIS
Executive Defendants and Alliance Intervenors challenge
Plaintiffs’ standing to seek a preliminary injunction regarding
their Equal Protection, Elections Clause, and Electors Clause
claims. (Alliance Resp. (Doc. 64) at 14-18; SBE Resp.
(Doc. 65) at 11-13.) Executive Defendants and Alliance
Intervenors also challenge this court's ability to hear this
action under abstention, (Alliance Resp. (Doc. 64) at 10-14;
SBE Resp. (Doc. 65) at 10-11), Rooker-Feldman (Alliance

Filedto12/07/20
8 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1629 Case

7

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

Resp. (Doc. 64) at 13), and preclusion doctrines, (SBE
Resp. (Doc. 65) at 7-10). Finally, Executive Defendants
and Alliance Intervenors attack Plaintiffs’ motions for
preliminary injunction on the merits. (Alliance Resp. (Doc.
64) at 19-26; SBE Resp. (Doc. 65) at 13-18.)
Because Rooker-Feldman, abstention, and preclusion are
dispositive issues, this court addresses them first, then
addresses Plaintiffs’ motions on standing and the likelihood
of success on the merits.
As to each of these abstention doctrines, as will be explained
further, this court's preliminary injunction order, (Doc. 124),
in Democracy North Carolina v. North Carolina State Board
of Elections, No. 1:20CV457, played a substantial role as
relevant authority supporting SBE's request for approval, in
North Carolina state court, of Revised Memo 2020-19 and
the related Consent Judgment. (See discussion infra Part
II.D.3.b.i.) As Berger, Moore, and SBE are all parties in
Democracy, this court initially finds that abstention doctrines
do not preclude this court's exercise of jurisdiction. This
court's August Democracy Order was issued prior to the filing
of these state court actions, and that Order was the basis of
the subsequent grant of affirmative relief by the state court.
This court declines to find that any abstention doctrine would
preclude it from issuing orders in aid of its jurisdiction, or as
to parties appearing in a pending case in this court.
A. Rooker-Feldman Doctrine
Rooker-Feldman doctrine is a jurisdictional doctrine that
prohibits federal district courts from “ ‘exercising appellate
jurisdiction over final state-court judgments.’ ” See Thana
v. Bd. of License Comm'rs for Charles Cnty., 827 F.3d
314, 319 (4th Cir. 2016) (quoting Lance v. Dennis, 546
U.S. 459, 463, 126 S.Ct. 1198, 163 L.Ed.2d 1059 (2006)
(per curiam)). The presence or absence of subject matter
jurisdiction under Rooker-Feldman is a threshold issue that
this court must determine before considering the merits of the
case. Friedman's, Inc. v. Dunlap, 290 F.3d 191, 196 (4th Cir.
2002).
*9 Although Rooker-Feldman originally limited only
federal-question jurisdiction, the Supreme Court has
recognized the applicability of the doctrine to cases brought
under diversity jurisdiction:
Rooker and Feldman exhibit the limited circumstances in
which this Court's appellate jurisdiction over state-court
judgments, 28 U.S.C. § 1257, precludes a United States

district court from exercising subject-matter jurisdiction in
an action it would otherwise be empowered to adjudicate
under a congressional grant of authority, e.g., § 1330 (suits
against foreign states), § 1331 (federal question), and §
1332 (diversity).
See Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 291-92, 125 S.Ct. 1517, 161 L.Ed.2d 454 (2005). Under
the Rooker-Feldman doctrine, courts lack subject matter
jurisdiction to hear “cases brought by [1] state-court losers
complaining of [2] injuries caused by state-court judgments
[3] rendered before the district court proceedings commenced
and [4] inviting district court review and rejection of those
judgments.” Id. at 284, 125 S.Ct. 1517. The doctrine is
“narrow and focused.” Thana, 827 F.3d at 319. “[I]f a plaintiff
in federal court does not seek review of the state court
judgment itself but instead ‘presents an independent claim, it
is not an impediment to the exercise of federal jurisdiction that
the same or a related question was earlier aired between the
parties in state court.’ ” Id. at 320 (quoting Skinner v. Switzer,
562 U.S. 521, 532, 131 S.Ct. 1289, 179 L.Ed.2d 233 (2011)).
Rather, “any tensions between the two proceedings should
be managed through the doctrines of preclusion, comity, and
abstention.” Id. (citing Exxon, 544 U.S. at 292–93, 125 S.Ct.
1517).
Moreover, “the Rooker–Feldman doctrine applies only when
the loser in state court files suit in federal district court seeking
redress for an injury allegedly caused by the state court's
decision itself.” Davani v. Va. Dep't of Transp., 434 F.3d 712,
713 (4th Cir. 2006); see also Hulsey v. Cisa, 947 F.3d 246,
250 (4th Cir. 2020) (“A plaintiff's injury at the hands of a third
party may be ‘ratified, acquiesced in, or left unpunished by’
a state-court decision without being ‘produced by’ the statecourt judgment.”) (internal citations omitted).
Here, Plaintiffs are challenging SBE's election procedures and
seeking injunction of those electoral rules, not attempting to
directly appeal results of a state court order. More importantly,
however, the Fourth Circuit has previously found that a party
is not a state court loser for purposes of Rooker-Feldman
if “[t]he [state court] rulings thus were not ‘final state-court
judgments’ ” against the party bringing up the same issues
before a federal court. Hulsey, 947 F.3d at 251 (quoting
Lance, 546 U.S. at 463, 126 S.Ct. 1198). In the Alliance state
court case, Alliance brought suit against SBE. The Plaintiffs
from this case were intervenors. They were not parties to
the Settlement Agreement and were in no way properly
adjudicated “state court losers.” Given the Supreme Court's
intended narrowness of the Rooker-Feldman doctrine, see

Filedto12/07/20
9 of 28Works.
Document 59-6
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1630 Case

8

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

Lance, 546 U.S. at 464, 126 S.Ct. 1198, and Plaintiffs’ failure
to fit within the Fourth Circuit's definition of “state-court
losers,” this court will decline to abstain under the RookerFeldman doctrine.
B. Abstention
1. Colorado River Abstention
*10 Abstention “is the exception, not the rule.” Colo.
River Water Conservation Dist. v. United States, 424 U.S.
800, 813, 96 S.Ct. 1236, 47 L.Ed.2d 483 (1976); see also
id. at 817, 96 S.Ct. 1236 (noting the “virtually unflagging
obligation of the federal courts to exercise the jurisdiction
given them”). Thus, this court's task “is not to find some
substantial reason for the exercise of federal jurisdiction,”
but rather “to ascertain whether there exist ‘exceptional’
circumstances, the ‘clearest of justifications,’ ... to justify the
surrender of that jurisdiction.” Moses H. Cone Mem'l Hosp.
v. Mercury Constr. Corp., 460 U.S. 1, 25-26, 103 S.Ct. 927,
74 L.Ed.2d 765 (1983).
First, and crucially for this case, the court must determine
whether there are ongoing state and federal proceedings that
are parallel. Al-Abood ex rel. Al-Abood v. El-Shamari, 217
F.3d 225, 232 (4th Cir. 2000) (“The threshold question in
deciding whether Colorado River abstention is appropriate is
whether there are parallel suits.”); Ackerman v. ExxonMobil
Corp., 734 F.3d 237, 248 (4th Cir. 2013) (finding that
abstention is exercised only “in favor of ongoing, parallel
state proceedings” (emphasis added)). In this instance, the
parties have failed to allege any ongoing state proceeding that
this federal suit might interfere with. In fact, Plaintiffs in this
case were excluded as parties in the Consent Judgment and
are bringing independent claims in this federal court alleging
violations, inter alia, of the Equal Protection Clause. This
court does not find that Colorado River abstention prevents
it from adjudicating Equal Protection claims raised by parties
who were not parties to the Consent Judgment.

2. Pennzoil Abstention
As alleged by Defendants, Pennzoil does dictate that federal
courts should not “interfere with the execution of state
judgments.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 14,
107 S.Ct. 1519, 95 L.Ed.2d 1 (1987). However, in the very
next sentence, the Pennzoil court caveats that this doctrine

applies “[s]o long as those challenges relate to pending state
proceedings.” Id. In fact, in Pennzoil itself, the Court clarified
that abstention was proper because “[t]here is at least one
pending judicial proceeding in the state courts; the lawsuit out
of which Texaco's constitutional claims arose is now pending
before a Texas Court of Appeals in Houston, Texas.” Id. at
14, 107 S.Ct. 1519 n.13.
Abstention was also justified in Pennzoil because the Texas
state court was not presented with the contested federal
constitutional questions, and thus, “when [the subsequent]
case was filed in federal court, it was entirely possible that
the Texas courts would have resolved this case ... without
reaching the federal constitutional questions.” Id. at 12,
107 S.Ct. 1519. In the present case, Plaintiffs raised their
constitutional claims in the state court prior to the entry of
the Consent Judgment. The state court, through the Consent
Judgment and without taking evidence, adjudicated those
claims as to the settling parties. The Consent Judgment is
effective through the 2020 Election and specifies no further
basis upon which Plaintiffs here may seek relief. As a result,
there does not appear to be any relief available to Plaintiffs
for the federal questions raised here. For these reasons, this
court will also decline to abstain under Pennzoil.

3. Pullman Abstention
Pullman abstention can be exercised where: (1) there is “an
unclear issue of state law presented for decision”; and (2)
resolution of that unclear state law issue “may moot or present
in a different posture the federal constitutional issue such
that the state law issue is potentially dispositive.” Educ.
Servs., Inc. v. Md. State Bd. for Higher Educ., 710 F.2d
170, 174 (4th Cir. 1983); see also N.C. State Conference of
NAACP v. Cooper, 397 F. Supp. 3d 786, 794 (M.D.N.C.
2019). Pullman does not apply here because any issues of
state law are not, in this court's opinion, unclear or ambiguous.
Alliance's brief in Moore posits that “whether NCSBE has
the authority to enter the Consent Judgment and promulgate
the Numbered Memos” are at the center of this case, thereby
urging Pullman abstention. (Alliance Resp. (Doc. 64 at 12).)
SBE has undisputed authority to issue guidance consistent
with state law and may issue guidance contrary to state law
only in response to natural disasters – the court finds this,
though ultimately unnecessary to the relief issued in this
case, fairly clear. (See discussion supra at Part II.E.2.b.ii.)
Moreover, this court has already expressly assessed and
upheld the North Carolina state witness requirement, which

2:20-cv-01771-PP
12/07/20
Page
10 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1631 Case

9

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

is the primary state law at issue in this case. Democracy N.
Carolina, ––– F.Supp.3d at ––––, 2020 WL 4484063, at *48.
*11 Furthermore, Defendants and Intervenors would
additionally need to show how “resolution of ... state
law issues pending in state court” would “eliminate or
substantially modify the federal constitutional issues raised
in Plaintiffs’ Complaint.” N.C. State Conference of NAACP,
397 F. Supp. 3d at 796. As Alliance notes, the Plaintiffs did
not appeal the state court's conclusions, but sought relief in
federal court – there is no state law issue pending in state court
here. For all of these reasons, this court declines to abstain
under Pullman.
C. Issue Preclusion
Collateral estoppel, or issue preclusion “refers to the effect
of a prior judgment in foreclosing successive litigation of an
issue of fact or law actually litigated and resolved in a valid
court determination essential to the prior judgment, whether
or not the issue arises on the same or a different claim.” New
Hampshire v. Maine, 532 U.S. 742, 748-49, 121 S.Ct. 1808,
149 L.Ed.2d 968 (2001). The purpose of this doctrine is to
“protect the integrity of the judicial process ....” Id. at 749,
121 S.Ct. 1808 (internal quotations omitted).
Plaintiffs argue that issue preclusion does not bar their Equal
Protection claims. Citing Arizona v. California, 530 U.S.
392, 120 S.Ct. 2304, 147 L.Ed.2d 374 (2000), Plaintiffs
in Wise argue that a negotiated settlement between parties,
like the consent judgment between the Alliance Intervenors
and Defendant SBE in Wake County Superior Court, does
not constitute a final judgment for issue preclusion. (Wise
Pls.’ Mot. (Doc. 43) at 23.) Plaintiffs in Moore, citing In re
Microsoft Corp. Antitrust Litig., 355 F.3d 322 (4th Cir. 2004),
argue that issue preclusion cannot be asserted because the
Individual Plaintiffs in Moore were not parties to the state
court litigation that resulted in the consent judgment. (Moore
Pls.’ Mot. (Doc. 60) at 4.)
In response, Defendant SBE argues that, under North Carolina
law, issue preclusion applies where (1) the issue is identical to
the issue actually litigated and necessary to a prior judgment,
(2) the prior action resulted in a final judgment on the merits,
and (3) the plaintiffs in the latter action are the same as, or
in privity with, the parties in the earlier action, (SBE Resp.
(Doc. 65) at 7), and the parties in these federal actions and
those in the state actions are in privity under the third element
of the test, (id. at 8).

This court finds that issue preclusion does not bar Plaintiffs’
claims. In Arizona v. California, the Supreme Court held
that “[i]n most circumstances, it is recognized that consent
agreements ordinarily are intended to preclude any further
litigation on the claim presented but are not intended to
preclude further litigation on any of the issues presented.”
530 U.S. at 414, 120 S.Ct. 2304 (internal quotations
omitted). Moreover, “settlements ordinarily occasion no issue
preclusion ... unless it is clear ... that the parties intend their
agreement to have such an effect.” Id.
The Consent Judgment SBE and Alliance entered into does
not clearly demonstrate that they intended their agreement
to have an issue preclusive effect with regard to claims
brought now by Plaintiffs in Moore and Wise. The language
of the Consent Judgment demonstrates that it “constitutes
a settlement and resolution of Plaintiffs’ claims against
Executive Defendants pending in this Lawsuit” and that
“by signing this Stipulation and Consent Judgment, they are
releasing any claims ... that they might have against Executive
Defendants.” (State Court Consent Judgment (Doc. 45-1) at
14 (emphasis added).) Although Timothy Moore and Philip
Berger, State Legislative Plaintiffs in Moore, were DefendantIntervenors in the NC Alliance action, they were not parties to
the consent judgment. (Id.) Thus, because the plain language
of the agreement did not expressly indicate an intention
to preclude Plaintiffs Moore and Berger from litigating the
issue in subsequent litigation, neither these State Legislative
Plaintiffs, nor any other parties with whom they may or may
not be in privity, are estopped from raising these claims now
before this court.
D. Plaintiffs’ Equal Protection Claims
*12 Plaintiffs raise “two separate theories of an equal
protection violation,” – a “vote dilution claim, and an
arbitrariness claim.” (Oral Argument Tr. (Doc. 70) at 52; see
also Wise Pls.’ Mot. (Doc. 43) at 12-15.)

1. Voting Harms Prohibited by the Equal Protection
Clause
Under the Fourteenth Amendment of the U.S. Constitution,
a state may not “deny to any person within its jurisdiction
the equal protection of the laws.” U.S. Const. amend. XIV.
The Fourteenth Amendment is one of several constitutional
provisions that “protects the right of all qualified citizens to
vote, in state as well as federal elections.” Reynolds v. Sims,

2:20-cv-01771-PP
12/07/20
Page
11 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1632 Case

10

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

377 U.S. 533, 554, 84 S.Ct. 1362, 12 L.Ed.2d 506 (1964).
Because the Fourteenth Amendment protects not only the
“initial allocation of the franchise,” as well as “to the manner
of its exercise,” Bush v. Gore, 531 U.S. 98, 104, 121 S.Ct.
525, 148 L.Ed.2d 388 (2000), “lines may not be drawn which
are inconsistent with the Equal Protection Clause ....” Id. at
105, 121 S.Ct. 525 (citing Harper v. Va. State Bd. of Elections,
383 U.S. 663, 665, 86 S.Ct. 1079, 16 L.Ed.2d 169 (1966)).
The Supreme Court has identified two theories of voting
harms prohibited by the Fourteenth Amendment. First, the
Court has identified a harm caused by “debasement or
dilution of the weight of a citizen's vote,” also referred to
“vote dilution.” Reynolds, 377 U.S. at 555, 84 S.Ct. 1362.
Courts find this harm arises where gerrymandering under
a redistricting plan has diluted the “requirement that all
citizens’ votes be weighted equally, known as the one person,
one vote principle,” and resulted in one group or community's
vote counting more than another's. Raleigh Wake Citizens
Ass'n v. Wake Cnty. Bd. of Elections, 827 F.3d 333, 340 (4th
Cir. 2016); see also Gill v. Whitford, 585 U.S. ––––, ––––,
138 S. Ct. 1916, 1930-31, 201 L.Ed.2d 313 (2018) (finding
that the “harm” of vote dilution “arises from the particular
composition of the voter's own district, which causes his vote
– having been packed or cracked – to carry less weight than
it would carry in another, hypothetical district”); Wesberry v.
Sanders, 376 U.S. 1, 18, 84 S.Ct. 526, 11 L.Ed.2d 481 (1964)
(finding that vote dilution occurred where congressional
districts did not guarantee “equal representation for equal
numbers of people”); Wright v. North Carolina, 787 F.3d 256,
268 (4th Cir. 2015) (invalidating a voter redistricting plan).
Second, the Court has found that the Equal Protection Clause
is violated where the state, “[h]aving once granted the right
to vote on equal terms,” through “later arbitrary and disparate
treatment, value[s] one person's vote over that of another.”
Bush, 531 U.S. at 104-05, 121 S.Ct. 525 (2000); see also
Baker v. Carr, 369 U.S. 186, 208, 82 S.Ct. 691, 7 L.Ed.2d
663 (1962) (“A citizen's right to a vote free of arbitrary
impairment by state action has been judicially recognized as
a right secured by the Constitution, when such impairment
resulted from dilution by a false tally, or by a refusal to
count votes from arbitrarily selected precincts, or by a stuffing
of the ballot box.”) (internal citations omitted). This second
theory of voting harms requires courts to balance competing
concerns around access to the ballot. On the one hand, a state
should not engage in practices which prevent qualified voters
from exercising their right to vote. A state must ensure that
there is “no preferred class of voters but equality among those

who meet the basic qualifications.” Gray v. Sanders, 372 U.S.
368, 379-80, 83 S.Ct. 801, 9 L.Ed.2d 821 (1963). On the other
hand, the state must protect against “the diluting effect of
illegal ballots.” Id. at 380, 83 S.Ct. 801. Because “the right to
have one's vote counted has the same dignity as the right to put
a ballot in a box,” id., the vote dilution occurs only where there
is both “arbitrary and disparate treatment.” Bush, 531 U.S. at
105, 121 S.Ct. 525. To this end, states must have “specific
rules designed to ensure uniform treatment” of a voter's ballot.
Id. at 106, 121 S.Ct. 525.

2. Standing to Bring Equal Protection Claims
*13 In light of the harms prohibited by the Equal Protection
Clause, this court must first consider whether Plaintiffs have
standing to bring these claims.
For a case or controversy to be justiciable in federal court, a
plaintiff must allege “such a personal stake in the outcome of
the controversy as to warrant his invocation of federal court
jurisdiction and to justify exercise of the court's remedial
powers on his behalf.” White Tail Park, Inc. v. Stroube, 413
F.3d 451, 458 (4th Cir. 2005) (quoting Planned Parenthood of
S.C. Inc. v. Rose, 361 F.3d 786, 789 (4th Cir. 2004)).
The party seeking to invoke the federal courts’ jurisdiction
has the burden of satisfying Article III's standing requirement.
Miller v. Brown, 462 F.3d 312, 316 (4th Cir. 2006). To meet
that burden, a plaintiff must demonstrate three elements: (1)
that the plaintiff has suffered an injury in fact that is “concrete
and particularized” and “actual or imminent”; (2) that the
injury is fairly traceable to the challenged conduct of the
defendant; and (3) that a favorable decision is likely to redress
the injury. Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992).
In multi-plaintiff cases, “[a]t least one plaintiff must have
standing to seek each form of relief requested in the
complaint.” Town of Chester v. Laroe Estates, Inc., 581 U.S.
––––, ––––, 137 S. Ct. 1645, 1651, 198 L.Ed.2d 64 (2017).
Further, if there is one plaintiff “who has demonstrated
standing to assert these rights as his own,” the court “need not
consider whether the other individual and corporate plaintiffs
have standing to maintain the suit.” Vill. of Arlington Heights
v. Metro. Hous. Dev. Corp., 429 U.S. 252, 264 & n.9, 97 S.Ct.
555, 50 L.Ed.2d 450 (1977).

2:20-cv-01771-PP
12/07/20
Page
12 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1633 Case

11

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

In the voting context, “voters who allege facts showing
disadvantage to themselves as individuals have standing to
sue,” Baker, 369 U.S. at 206, 82 S.Ct. 691, so long as their
claimed injuries are “distinct from a ‘generally available
grievance about the government,’ ” Gill, 138 S. Ct. at 1923
(quoting Lance v. Coffman, 549 U.S. 437, 439, 127 S.Ct.
1194, 167 L.Ed.2d 29 (2007) (per curiam)).
Defendant SBE and Alliance Intervenors argue that
Individual Plaintiffs in Wise and Moore have not alleged a
concrete and particularized injury under either of the two
Equal Protection theories. (Alliance Resp. (Doc. 64) at 14-15;
SBE Resp. (Doc. 65) at 12-13.)
First, under a vote dilution theory, they argue that courts
have “repeatedly rejected this theory as a basis for standing,
both because it is unduly speculative and impermissibly
generalized.” (Alliance Resp. (Doc. 64) at 17.) Second, under
an arbitrary and disparate treatment theory, they argue that the
injury is too generalized because the Numbered Memoranda
apply equally to all voters across the state and that Plaintiffs
“cannot claim an injury for not having to go through a
remedial process put in place for other voters.” (SBE Resp.
(Doc. 65) at 12.)
Plaintiffs in Moore and Wise do not address standing for
their Equal Protection claims in their memoranda in support
of their motions for a preliminary injunction. (See Wise
Pls.’ Mot. (Doc. 43); Moore Pls.’ Mot. (Doc. 60).) At oral
argument held on October 8, 2020, however, counsel for the
Moore Plaintiffs responded to Defendant SBE and Alliance
Intervenor's standing arguments. (Oral Argument Tr. (Doc.
70) at 52-59.)
*14 First, under a vote dilution theory, counsel argued that
“the Defendants confuse a widespread injury with not having
a personal injury,” (id. at 53), and that the Supreme Court's
decision in Reynolds demonstrates that “impermissible vote
dilution occurs when there's ballot box stuffing,” (id.),
suggesting that each voter would have standing to sue under
the Supreme Court's precedent in Reynolds because their vote
has less value. (Id.) Second, under an arbitrary and disparate
treatment theory, counsel argued that Plaintiffs were subjected
to the witness requirement and that “[t]here are burdens
associated with that” which support a finding of an injury in
fact. (Id. at 56.) Counsel argued the harm that is occurring
is not speculative because, for example, voters have and
will continue to fail to comply with the witness requirement,
(id. at 55-56), and ballots will arrive between the third and

ninth day following the election pursuant to the Postmark
Requirement, (id. at 58). Moreover, counsel argued that the
“regime” imposed by the state is arbitrary, citing limitations
on assistance allowed to complete a ballot, compared to the
lessened restrictions associated with the witness requirement
under Numbered Memo 2020-19. (Id. at 59.)
This court finds that Individual Plaintiffs in Moore and Wise
have not articulated a cognizable injury in fact for their vote
dilution claims. However, all of the Individual Plaintiffs in
Moore, and one Individual Plaintiff in Wise have articulated
an injury in fact for an arbitrary and disparate treatment claim.

a. Vote Dilution
Although the Supreme Court has “long recognized that a
person's right to vote is ‘individual and personal in nature.’ ”
Gill, 138 S. Ct. at 1930 (citing Reynolds, 377 U.S. at 561, 84
S.Ct. 1362), the Court has expressly held that “vote dilution”
refers specifically to “invidiously minimizing or canceling
out the voting potential of racial or ethnic minorities,” Abbott
v. Perez, 585 U.S. ––––, ––––, 138 S. Ct. 2305, 2314, 201
L.Ed.2d 714 (2018) (internal quotations and modifications
omitted) (emphasis added), a harm which occurs where “the
particular composition of the voter's own district ... causes his
vote – having been packed or cracked – to carry less weight
than it would carry in another, hypothetical district.” Gill, 138
S. Ct. at 1931.
Indeed, lower courts which have addressed standing in vote
dilution cases arising out of the possibility of unlawful
or invalid ballots being counted, as Plaintiffs have argued
here, have said that this harm is unduly speculative and
impermissibly generalized because all voters in a state
are affected, rather than a small group of voters. See,
e.g., Donald J. Trump for President, Inc. v. Cegavske,
Case No. 2:20-CV-1445 JCM (VCF), ––– F.Supp.3d ––––,
––––, 2020 WL 5626974, at *4 (D. Nev. Sept. 18, 2020)
(“As with other generally available grievances about the
government, plaintiffs seek relief on behalf of their member
voters that no more directly and tangibly benefits them
than it does the public at large.”) (internal quotations and
modifications omitted); Martel v. Condos, Case No. 5:20cv-131, ––– F.Supp.3d ––––, ––––, 2020 WL 5755289, at
*4 (D. Vt. Sept. 16, 2020) (“If every voter suffers the same
incremental dilution of the franchise caused by some thirdparty's fraudulent vote, then these voters have experienced
a generalized injury.”); Paher v. Cegavske, 457 F.Supp.3d

2:20-cv-01771-PP
12/07/20
Page
13 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1634 Case

12

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

919, 926–27 (D. Nev. 2020) (“Plaintiffs’ purported injury of
having their votes diluted due to ostensible election fraud
may be conceivably raised by any Nevada voter.”); Am. Civil
Rights Union v. Martinez-Rivera, 166 F. Supp. 3d. 779, 789
(W.D. Tex. 2015) (“[T]he risk of vote dilution [is] speculative
and, as such, [is] more akin to a generalized grievance about
the government than an injury in fact.”).
Although “[i]t would over-simplify the standing analysis
to conclude that no state-wide election law is subject to
challenge simply because it affects all voters,” Martel, –––
F.Supp.3d at ––––, 2020 WL 5755289, at *4, the notion that
a single person's vote will be less valuable as a result of
unlawful or invalid ballots being cast is not a concrete and
particularized injury in fact necessary for Article III standing.
Compared to a claim of gerrymandering, in which the injury
is specific to a group of voters based on their racial identity or
the district where they live, all voters in North Carolina, not
just Individual Plaintiffs, would suffer the injury Individual
Plaintiffs allege. This court finds this injury too generalized to
give rise to a claim of vote dilution, and thus, neither Plaintiffs
in Moore nor in Wise have standing to bring their vote dilution
claims under the Equal Protection Clause.

b. Arbitrary and Disparate Treatment
*15 In Bush, the Supreme Court held that, “[h]aving once
granted the right to vote on equal terms, the State may not,
by later arbitrary and disparate treatment, value one person's
vote over that of another.” 531 U.S. at 104-05, 121 S.Ct.
525. Plaintiffs argue that they have been subjected to arbitrary
and disparate treatment because they voted under one set of
rules, and other voters, through the guidance in the Numbered
Memoranda, will be permitted to vote invalidly under a
different and unequal set of rules, and that this is a concrete
and particularized injury. (Oral Argument Tr. (Doc. 70) at
70-71.)
For the purposes of determining whether Plaintiffs have
standing, is it not “necessary to decide whether [Plaintiffs’]
allegations of impairment of their votes” by Defendant SBE's
actions “will, ultimately, entitle them to any relief,” Baker,
369 U.S. at 208, 82 S.Ct. 691; whether a harm has occurred
is best left to this court's analysis of the merits of Plaintiffs’
claims, (see discussion infra Section II.D.3). Instead, the
appropriate inquiry is, “[i]f such impairment does produce
a legally cognizable injury,” whether Plaintiffs “are among

those who have sustained it.” Baker, 369 U.S. at 208, 82 S.Ct.
691.
This court finds that Individual Plaintiffs in Moore and one
Individual Plaintiff in Wise have standing to raise an arbitrary
and disparate treatment claim because their injury is concrete,
particularized, and not speculative. Bobby Heath and Maxine
Whitley, the Individual Plaintiffs in Moore, are registered
North Carolina voters who voted absentee by mail and whose
ballots have been accepted by SBE. (Moore Compl. (Doc.
1) ¶¶ 9-10.) In Wise, Individual Plaintiff Patsy Wise is a
registered voter who cast her absentee ballot by mail. (Wise
Compl. (Doc. 1) ¶ 25.)
If Plaintiffs Heath, Whitley, and Wise were voters who
intended to vote by mail but who had not yet submitted their
ballots, as is the case with the other Individual Plaintiffs in
Wise, (Wise Compl. (Doc. 1) ¶¶ 26-28), or voters who had
intended to vote in-person either during the Early Voting
period or on Election Day, then they would not in fact have
been impacted by the laws and procedures for submission
of absentee ballots by mail and the complained-of injury
would be merely “an injury common to all other registered
voters,” Martel, ––– F.Supp.3d at ––––, 2020 WL 5755289,
at *4. See also Donald J. Trump for President, Inc., –––
F.Supp.3d at ––––, 2020 WL 5626974, at *4 (“Plaintiffs never
describe how their member voters will be harmed by vote
dilution where other voters will not.”). Indeed, this court
finds that Individual Plaintiffs Clifford, Bambini, and Baum
in Wise do not have standing to challenge the Numbered
Memoranda, because any “shock[ ]” and “serious concern[s]”
they have that their vote “will be negated by improperly cast
or fraudulent ballots,” (Wise Compl. (Doc. 1) ¶¶ 26-28), is
merely speculative until such point that they have actually
voted by mail and had their ballots accepted, which Plaintiffs’
Complaint in Wise does not allege has occurred. (Id.)
Yet, because Plaintiffs Heath, Whitley, and Wise have, in fact,
already voted by mail, (Moore Compl. (Doc. 1) ¶¶ 9-10; Wise
Compl. (Doc. 1) ¶ 25), their injury is not speculative. Under
the Numbered Memoranda 2020-19, 2020-22, and 2020-23,
other voters who vote by mail will be subjected to a different
standard than that to which Plaintiffs Heath, Whitley, and
Wise were subjected when they cast their ballots by mail.
Assuming this is an injury that violates the Equal Protection
Clause, Baker, 369 U.S. at 208, 82 S.Ct. 691, the harm alleged
by Plaintiffs is particular to voters in Heath, Whitley, and
Wise's position, rather than a generalized injury that any
North Carolina voter could claim. For this reason, this court

2:20-cv-01771-PP
12/07/20
Page
14 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1635 Case

13

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

finds that Individual Plaintiffs Heath, Whitley, and Wise have
standing to raise Equal Protection claims under an arbitrary
and disparate treatment theory. Because at least one plaintiff
in each of these multi-plaintiff cases has standing to seek
the relief requested, the court “need not consider whether
the other individual and corporate plaintiffs have standing to
maintain the suit.” Vill. of Arlington Heights, 429 U.S. at 264
& n.9, 97 S.Ct. 555.

3. Likelihood of Success on the Merits
*16 Having determined that Individual Plaintiffs have
standing to bring their arbitrary and disparate treatment
claims, this court now considers whether Plaintiffs’ claims are
likely to succeed on the merits. To demonstrate a likelihood
of success on the merits, “[a] plaintiff need not establish a
certainty of success, but must make a clear showing that he is
likely to succeed at trial.” Di Biase, 872 F.3d at 230.

a. Parties’ Arguments
Plaintiffs argue that four policies indicated in the Numbered
Memoranda are invalid under the Equal Protection Clause:
(1) the procedure which allows ballots without a witness
signature to be retroactively validated through the cure
procedure indicated in Revised Numbered Memo 2020-19
(“Witness Requirement Cure Procedure”); (2) the procedure
which allows absentee ballots to be received up to nine
days after Election Day if they are postmarked on Election
Day, as indicated in Numbered Memo 2020-19 (“Receipt
Deadline Extension”); and (3) the procedure which allows
for anonymous delivery of ballots to unmanned drop boxes,
as indicated in Numbered Memo 2020-23 (“Drop Box Cure
Procedure”); (4) the procedure which allows ballots to be
counted without a United States Postal Service postmark,
as indicated in Numbered Memo 2020-22 (“Postmark
Requirement Changes”). (Moore Compl. (Doc. 1) ¶ 93; Wise
Compl. (Doc. 1) ¶ 124; Wise Pls.’ Mot. (Doc. 43) at 13-14.)
Plaintiffs in Wise argue that the changes in these Memoranda
“guarantee that voters will be treated arbitrarily under the
ever-changing voting regimes.” (Wise Pls.’ Mot. (Doc. 43)
at 11.) Similarly, Plaintiffs in Moore argue that the three
Memoranda were issued “after tens of thousands of North
Carolinians cast their votes following the requirements set
by the General Assembly,” which deprives Plaintiffs “of
the Equal Protection Clause's guarantee because it allows

for ‘varying standards to determine what [i]s a legal vote.’
” (Moore Compl. (Doc. 1) ¶ 90 (citing Bush, 531 U.S. at 107,
121 S.Ct. 525).)
In response, Defendants argue that the Numbered Memoranda
will not lead to the arbitrary and disparate treatment of
ballots prohibited by the Supreme Court's decision in Bush
v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148 L.Ed.2d 388
(2000). Defendant SBE argues that the consent judgment and
Numbered Memos do “precisely what Bush contemplated: It
establishes uniform and adequate standards for determining
what is a legal vote, all of which apply statewide, well in
advance of Election Day. Indeed, the only thing stopping
uniform statewide standards from going into effect is the
TRO entered in these cases.” (SBE Resp. (Doc. 65) at 17.)
Moreover, Defendant SBE argues that the consent judgment
“simply establishes uniform standards that help county boards
ascertain which votes are lawful,” and “in no way lets votes
be cast unlawfully.” (Id. at 18.)
Alliance Intervenors argue that the Numbered Memos “apply
equally to all voters,” (Alliance Resp. (Doc. 64) at 18),
and “Plaintiffs have not articulated, let alone demonstrated,
how their right to vote – or anyone else's – is burdened or
valued unequally,” (id. at 19). Moreover, Alliance Intervenors
argue that the release of the Numbered Memoranda after the
election began does not raise equal protection issues because,
“[e]lection procedures often change after voting has started
to ensure that the fundamental right to vote is protected.” (Id.
at 20.)
Both Defendant SBE and Alliance Intervenors argue that the
release of the Numbered Memoranda after the election began
does not raise equal protection issues, as election procedures
often change after voting has started. (SBE Resp. (Doc.
65) at 18; Alliance Resp. (Doc. 64) at 20.) For example,
Defendant SBE argues that “[i]f it is unconstitutional to
extend the receipt deadline for absentee ballots to address mail
disruptions, then it would also be unconstitutional to extend
hours at polling places on Election Day to address power
outages or voting-machine malfunctions.” (SBE Resp. (Doc.
65) at 18 (citing N.C. Gen. Stat. § 163-166.01).) “Likewise,
the steps that the Board has repeatedly taken to ensure that
people can vote in the wake of natural disasters like hurricanes
would be invalid if those steps are implemented after voting
begins.” (Id.)

2:20-cv-01771-PP
12/07/20
Page
15 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1636 Case

14

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

b. Analysis
*17 This court agrees with the parties that an Equal
Protection violation occurs where there is both arbitrary
and disparate treatment. Bush, 531 U.S. at 105, 121 S.Ct.
525. This court also agrees with Defendants that not all
disparate treatment rises to the level of an Equal Protection
violation. As Defendant SBE argues, the General Assembly
has empowered SBE to make changes to voting policies
and procedures throughout the election, including extending
hours at polling places or adjusting voting in response to
natural disasters. (SBE Resp. (Doc. 65) at 18.) Other federal
courts have upheld changes to election procedures even after
voting has commenced. For example, in 2018, a federal court
enjoined Florida's signature matching procedures and ordered
a cure process after the election. Democratic Exec. Comm. of
Fla. v. Detzner, 347 F. Supp. 3d 1017, 1031 (N.D. Fla. 2018),
appeal dismissed as moot sub nom. Democratic Exec. Comm.
of Fla. v. Nat'l Republican Senatorial Comm., 950 F.3d 790
(11th Cir. 2020). Similarly, a Georgia federal court in 2018
ordered a cure process in the middle of the absentee and early
voting periods. Martin v. Kemp, 341 F. Supp. 3d 1326 (N.D.
Ga. 2018), appeal dismiss sub nom. Martin v. Sec'y of State
of Ga., No. 18-14503-GG, 2018 WL 7139247 (11th Cir. Dec.
11, 2018).
A change in election rules that results in disparate treatment
shifts from constitutional to unconstitutional when these
rules are also arbitrary. The ordinary definition of the word
“arbitrary” refers to matters “[d]epending on individual
discretion” or “involving a determination made without
consideration of or regard for facts, circumstances, fixed
rules, or procedures.” Arbitrary, Black's Law Dictionary (11th
ed. 2019). This definition aligns with the Supreme Court's
holding in Reynolds and Bush, that the State must ensure
equal treatment of voters both at the time it grants citizens
the right to vote and throughout the election. Bush, 531 U.S.
at 104-05, 121 S.Ct. 525 (“Having once granted the right
to vote on equal terms, the State may not, by later arbitrary
and disparate treatment, value one person's vote over that of
another.”); Reynolds, 377 U.S. at 555, 84 S.Ct. 1362 (“[T]he
right of suffrage can be denied by a debasement or dilution of
the weight of a citizen's vote just as effectively as by wholly
prohibiting the free exercise of the franchise.”).
The requirement that a state “grant[ ] the right to vote on
equal terms,” Bush, 531 U.S. at 104, 121 S.Ct. 525, includes
protecting the public “from the diluting effect of illegal

ballots,” Gray, 372 U.S. at 380, 83 S.Ct. 801. To fulfill this
requirement, a state legislature must define the manner in
which voting should occur and the minimum requirements
for a valid, qualifying ballot. In North Carolina, the General
Assembly has passed laws defining the requirements for
permissible absentee voting, N.C. Gen. Stat. § 163-226 et
seq., including as recently as this summer, when it modified
the one-witness requirement, 2020 N.C. Sess. Laws 2020-17
(H.B. 1169) § 1.(a). As this court found in its order issuing
a preliminary injunction in Democracy, these requirements
reflect a desire by the General Assembly to prevent voter
fraud resulting from illegal voting practices. Democracy N.
Carolina, ––– F.Supp.3d at ––––, 2020 WL 4484063, at *35.
A state cannot uphold its obligation to ensure equal treatment
of all voters at every stage of the election if another body,
including SBE, is permitted to contravene the duly enacted
laws of the General Assembly and to permit ballots to be
counted that do not satisfy the fixed rules or procedures
the state legislature has deemed necessary to prevent illegal
voting. Any guidance SBE adopts must be consistent with the
guarantees of equal treatment contemplated by the General
Assembly and Equal Protection.
Thus, following this precedent, and the ordinary definition
of the word “arbitrary,” this court finds that SBE engages in
arbitrary behavior when it acts in ways that contravene the
fixed rules or procedures the state legislature has established
for voting and that fundamentally alter the definition of a
validly voted ballot, creating “preferred class[es] of voters.”
Gray, 372 U.S. at 380, 83 S.Ct. 801.
*18 This definition of arbitrariness does not require this
court to consider whether the laws enacted by the General
Assembly violate other provisions in the North Carolina or
U.S. Constitution or whether there are better public policy
alternatives to the laws the General Assembly has enacted.
These are separate inquiries. This court's review is limited
to whether the challenged Numbered Memos are consistent
with state law and do not create a preferred class or classes
of voters.

i. Witness Requirement Cure Procedure
This court finds Plaintiffs have demonstrated a likelihood of
success on the merits with respect to their Equal Protection
challenge to the Witness Requirement Cure Procedure in
Revised Memo 2020-19.

2:20-cv-01771-PP
12/07/20
Page
16 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1637 Case

15

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

Under the 2020 N.C. Sess. Laws 2020-17 (H.B. 1169) § 1.
(a), a witnessed absentee ballot must be “marked ... in the
presence of at least one [qualified] person ....” This clear
language dictates that the witness must be (1) physically
present with the voter, and (2) present at the time the ballot
is marked by the voter.
Revised Memo 2020-19 counsels that ballots missing a
witness signature may be cured where voters sign and affirm
the following statement:
I am submitting this affidavit to correct a problem with
missing information on the ballot envelope. I am an eligible
voter in this election and registered to vote in [name]
County, North Carolina. I solemnly swear or affirm that I
voted and returned my absentee ballot for the November 3,
2020 general election and that I have not voted and will not
vote more than one ballot in this election. I understand that
fraudulently or falsely completing this affidavit is a Class
I felony under Chapter 163 of the North Carolina General
Statutes.
(Moore v. Circosta, No. 1:20CV911 (Doc. 45-1) at 34.)
This “cure” affidavit language makes no mention of whether
a witness was in the presence of the voter at the time that the
voter cast their ballot, which is the essence of the Legislature's
Witness Requirement. 2020 N.C. Sess. Laws 2020-17 (H.B.
1169) § 1.(a). In fact, a voter could truthfully sign and affirm
this statement and have their ballot counted by their county
board of elections without any witness becoming involved in
the process.6 Because the effect of this affidavit is to eliminate
the statutorily required witness requirement, this court finds
that Plaintiffs have demonstrated a likelihood of success on
the merits in proving that the Witness Requirement Cure
Procedure indicated in Revised Memo 2020-19 is arbitrary.
*19 Based on counsel's statements at oral arguments,
Defendant SBE may contend that the guidance in Revised
Memo 2020-19 is not arbitrary because it was necessary to
resolve the Alliance state court action. (Oral Argument Tr.
(Doc. 70) at 105 (“Our reading then of state law is that the
Board has the authority to make adjustments in emergencies
or as a means of settling protracted litigation until the
General Assembly reconvenes.”).) However, Defendant
SBE's arguments to the state court judge and the court in the
Eastern District of North Carolina belie that assertion, as they
advised the state court that both the original Memo 2020-19
and the Revised Memo were issued “to ensure full compliance

with the injunction entered by Judge Osteen,” (SBE State
Court Br. (Doc. 68-1) at 15), and they advised the court in
the Eastern District of North Carolina that they had issued
the revised Memo 2020-19 “in order to comply with Judge
Osteen's preliminary injunction in the Democracy N.C. action
in the Middle District.” (TRO (Doc. 47) at 9.) As this
court more fully explains in its order issued in Democracy,
this court finds that Defendant SBE improperly used this
court's August Democracy Order to modify the witness
requirement. Democracy v. N. Carolina, No. 1:20CV457,
2020 WL 6058048 (M.D.N.C. Oct. 14, 2020) (enjoining
witness cure procedure). Because Defendant SBE acted
improperly in that fashion, this court declines to accept an
argument now that elimination of the witness requirement was
a rational and justifiable basis upon which to settle the state
lawsuit. Furthermore, it is difficult to conceive that SBE was
authorized to resolve a pending lawsuit that could create a
preferred class of voters: those who may submit an absentee
ballot without a witness under an affidavit with no definition
of the meaning of “vote.”
This court also finds Plaintiffs have demonstrated a likelihood
of success on the merits in proving disparate treatment
may result as a result of the elimination of the Witness
Requirement. Individual Plaintiffs Wise, Heath, and Whitley
assert that they voted absentee by mail, including complying
with the Witness Requirement. (Wise Compl. (Doc. 1) ¶ 25;
Moore Compl. (Doc. 1) ¶¶ 9-10.) Whether because a voter
inadvertently cast a ballot without a witness or because a
voter was aware of the “cure” procedure and thus, willfully
did not cast a ballot with a witness, there will be voters
whose ballots are cast without a witness. Accordingly, this
court finds that Plaintiffs have demonstrated a likelihood of
success on the merits in proving that the Witness Requirement
Cure Procedure indicated in Memo 2020-19 creates disparate
treatment.
Thus, because Plaintiffs have demonstrated a likelihood of
success on the merits with respect to arbitrary and disparate
treatment that may result from under Witness Requirement
Cure Procedure in Revised Memo 2020-19, this court finds
Plaintiffs have established a likelihood of success on their
Equal Protection claim.

ii. Receipt Deadline Extension

2:20-cv-01771-PP
12/07/20
Page
17 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1638 Case

16

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

This court finds that Plaintiffs are likely to succeed on their
Equal Protection challenge to the Receipt Deadline Extension
in Revised Memo 2020-19.
Under N.C. Gen. Stat. § 163-231(b), in order to be counted,
civilian absentee ballots must have been received by the
county board office by 5 p m. on Election Day, November
3, 2020, or if postmarked by Election Day, by 5:00 p.m. on
November 6, 2020. The guidance in Revised Memo 2020-19
extends the time in which absentee ballots must be returned,
allowing a late civilian ballot to be counted if postmarked
on or before Election Day and received by 5:00 p m. on
November 12, 2020 (Revised Memo 2020-19 (Doc. 36-3) at
5.)
Alliance Intervenors argue that, “[t]o the extent Numbered
Memo 2020-22 introduces a new deadline, it affects only the
counting of ballots for election officials after Election Day
has passed – not when voters themselves must submit their
ballots. All North Carolina absentee voters still must mail
their ballots by Election Day.” (Alliance Resp. (Doc. 64) at
21.)
This court disagrees, finding Plaintiffs have demonstrated
a likelihood of success on the merits in proving that this
change contravenes the express deadline established by the
General Assembly, by extending the deadline from three
days after Election Day, to nine days after Election Day.
Moreover, it results in disparate treatment, as voters like
Individual Plaintiffs returned their ballots within the timeframe permitted under state law, (Wise Compl. (Doc. 1) ¶
25; Moore Compl. (Doc. 1) ¶¶ 9-10), but other voters whose
ballots would otherwise not be counted if received three days
after Election Day, will now have an additional six days to
return their ballot.
Because Plaintiffs have demonstrated a likelihood of success
on the merits in proving arbitrary and disparate treatment
may result under the Receipt Deadline Extension, this court
finds Plaintiffs have established a likelihood of success on the
merits of their Equal Protection claim.

iii. Drop Box Cure Procedure
*20 Plaintiffs have failed to establish a likelihood of success,
however, on their Equal Protection challenge to the Drop
Box Cure Procedure indicated in Numbered Memo 2020-23.
(Wise, No. 1:20CV912, Memo 2020-23 (Doc. 1-4).)

N.C. Gen. Stat. § 163-226.3(a)(5) makes it a felony for any
person other than the voter's near relative or legal guardian
to take possession of an absentee ballot of another voter for
delivery or for return to a county board of elections.
“Because of this provision in the law,” and the need to ensure
compliance with it, SBE recognized in Memo 2020-23 that,
“an absentee ballot may not be left in an unmanned drop
box,” (Wise, No. 1:20CV912, Memo 2020-23 (Doc. 1-4) at
2), and directed county boards which have a “drop box, slot,
or similar container at their office” for other business purposes
to place a “sign indicating that absentee ballots may not be
deposited in it.” (Id.)
Moreover, the guidance reminds county boards that they must
keep a written log when any person returns an absentee ballot
in person, which includes the name of the individual returning
the ballot, their relationship to the voter, the ballot number,
and the date it was received. (Id. at 3.) If the individual who
drops off the ballot is not the voter, their near relative, or
legal guardian, the log must also record their address and
phone number. (Id.) The guidance also advises county boards
that “[f]ailure to comply with the logging requirement, or
delivery or an absentee ballot by a person other than the
voter, the voter's near relative, or the voter's legal guardian,
is not sufficient evidence in and of itself to establish that the
voter did not lawfully vote their ballot.” (Id. at 3.) Instead,
the guidance advises the county board that they “may ...
consider the delivery of a ballot ... in conjunction with other
evidence in determining whether the ballot is valid and should
be counted.” (Id. at 4.)
Plaintiffs argue that this guidance “undermines the General
Assembly's criminal prohibition of the unlawful delivery of
ballots,” (Moore Compl. (Doc. 1) ¶ 68), and “effectively
allow[s] voters to use drop boxes for absentee ballots,” (Wise
Pls.’ Mot. (Doc. 43) at 13), and thus, violates the Equal
Protection Clause, (Moore Compl. (Doc. 1) ¶ 93). This court
disagrees.
Although Numbered Memo 2020-23 was released on
September 22, 2020, (Wise, No. 1:20CV912, Memo 2020-23
(Doc. 1-4) at 2), the guidance it contains is not new.
Consistent with the guidance in Numbered Memo 2020-23,
SBE administrative rules adopted on December 1, 2018,
require that any person delivering a ballot to a county board
of elections office provide:
(1) Name of voter;

2:20-cv-01771-PP
12/07/20
Page
18 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1639 Case

17

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

(2) Name of person delivering ballot;
(3) Relationship to voter;
(4) Phone Number (if available) and current address of
person delivering ballot;
(5) Date and time of delivery of ballot; and
(6) Signature or mark of person delivering ballot certifying
that the information provided is true and correct and that
the person is the voter or the voter's near relative as defined
in [N.C. Gen. Stat § 163-226(f)] or verifiable legal guardian
as defined in [N.C. Gen. Stat. § 163-226(e)].
8 N.C. Admin. Code 18.0102 (2018). Moreover, the
administrative rule states that “the county board of elections
may consider the delivery of a ballot in accordance with
this Rule in conjunction with other evidence in determining
whether the container-return envelope has been properly
executed according to the requirements of [N.C. Gen. Stat.
§ 163-231],” (id.), and that “[f]ailure to comply with this
Rule shall not constitute evidence sufficient in and of itself
to establish that the voter did not lawfully vote his or her
ballot.” (Id.)
*21 Because the guidance contained in Numbered Memo
2020-23 was already in effect at the start of this election as
a result of SBE's administrative rules, Individual Plaintiffs
were already subject to it at the time that they cast their
votes. Accordingly, because all voters were subject to the
same guidance, Plaintiffs have not demonstrated a likelihood
of success on the merits in proving disparate treatment.
It is a closer issue with respect to whether Plaintiffs have
demonstrated a likelihood of success on the merits in proving
that the rules promulgated by Defendant SBE are inconsistent
with N.C. Gen. Stat. § 163-226.3(a)(5).
This statute makes it a felony for any person other than the
voter's near relative or legal guardian to take possession of
an absentee ballot of another voter for delivery or for return
to a county board of elections. Id. It would seem logically
inconsistent that the General Assembly would criminalize this
behavior, while at the same time, permit ballots returned by
unauthorized third parties to be considered valid. Yet, upon
review of the legislative history, this court finds the felony
statute has been in force since 1979, 1979 N.C. Sess. Laws Ch.
799 (S.B. 519) § 4, https://www ncleg.gov/enactedlegislation/
sessionlaws/pdf/1979-1980/sl1979-799.pdf (last visited Oct.

13, 2020), and in its current form since 2013. 2013 N.C. Sess.
Laws 381 (H.B. 589) § 4.6.(a).
That the General Assembly, by not taking legislative action,
and instead, permitted SBE's administrative rule and the
General Assembly's statute to coexist for nearly two years
and through several other elections undermines Plaintiffs’
argument that Defendant SBE has acted arbitrarily. For this
reason, this court finds that Plaintiffs have not demonstrated a
likelihood of success on the merits in proving the arbitrariness
of the guidance in Numbered Memo 2020-23 and accordingly,
Plaintiffs have failed to establish a likelihood of success
on their Equal Protection challenge to Numbered Memo
2020-23.
If the General Assembly believes that SBE's administrative
rules are inconsistent with its public policy goals, they are
empowered to pass legislation which overturns the practice
permitted under the administrative rule.

iv. Postmark Requirement Changes
Similarly, this court finds that Plaintiffs have failed to
establish likelihood of success on the merits with respect to
their Equal Protection challenge to the Postmark Requirement
Changes in Numbered Memo 2020-22. (Wise, 1:20CV912,
Memo 2020-22 (Doc. 1-3).)
Under Numbered Memo 2020-22, a ballot will be considered
postmarked by Election Day if it has a USPS postmark, there
is information in BallotTrax, or “another tracking service
offered by the USPS or a commercial carrier, indicat[es] that
the ballot was in the custody of USPS or the commercial
carrier on or before Election Day.” (Id. at 3.) This court
finds that these changes are consistent with N.C. Gen. Stat.
§ 163-231(b)(2)b, which does not define what constitutes a
“postmark,” and instead, merely states that ballots received
after 5:00 p.m. on Election Day may not be accepted unless
the ballot is “postmarked and that postmark is dated on or
before the day of the ... general election ... and are received
by the county board of elections not later than three days after
the election by 5:00 p m.”
In the absence of a statutory definition for postmark, this
court finds Plaintiffs have not demonstrated a likelihood
of success on the merits in proving that Numbered Memo
2020-22 is inconsistent with N.C. Gen. Stat. § 163-231(b)
(2)b, and thus, arbitrary. If the General Assembly believes

2:20-cv-01771-PP
12/07/20
Page
19 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1640 Case

18

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

that the Postmark Requirement Changes indicated in Memo
2020-22 are inconsistent with its public policy goals, they
are empowered to pass legislation which further specifies the
definition of a “postmark.” In the absence of such legislation,
however, this court finds that Plaintiffs have failed to establish
a likelihood of success on the merits of their Equal Protection
challenge.

4. Irreparable Harm
*22 In addition to a likelihood of success on the merits,
a plaintiff must also make a “clear showing that it is likely
to be irreparably harmed absent preliminary relief” in order
to obtain a preliminary injunction. UBS Fin. Servs. Inc. v.
Carilion Clinic, 880 F. Supp. 2d 724, 733 (E.D. Va. 2012)
(quoting Real Truth About Obama, Inc. v. Fed. Election
Comm'n, 575 F.3d 342, 347 (4th Cir. 2009)). Further, an
injury is typically deemed irreparable if monetary damages
are inadequate or difficult to ascertain. See Multi-Channel TV
Cable Co. v. Charlottesville Quality Cable Operating Co., 22
F.3d 546, 551 (4th Cir. 1994), abrogated on other grounds by
Winter, 555 U.S. at 22, 129 S.Ct. 365. “Courts routinely deem
restrictions on fundamental voting rights irreparable injury.”
League of Women Voters of N.C. v. North Carolina, 769 F.3d
224, 247 (4th Cir. 2014). “[O]nce the election occurs, there
can be no do-over and no redress. The injury to these voters
is real and completely irreparable if nothing is done to enjoin
th[ese] law[s].” Id.
The court therefore finds Plaintiffs have demonstrated a
likelihood of irreparable injury regarding the Equal Protection
challenges to the Witness Requirement and the Receipt
Deadline Extension.

5. Balance of Equities
The third factor in determining whether preliminary relief
is appropriate is whether the plaintiff demonstrates “that the
balance of equities tips in his favors.” Winter, 555 U.S. at 20,
129 S.Ct. 365.
The Supreme Court's decision in Purcell v. Gonzalez, 549
U.S. 1, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006), urges that this
court should issue injunctive relief as narrowly as possible.
The Supreme Court has made clear that “lower federal courts
should ordinarily not alter the election rules on the eve of
an election,” Republican Nat'l Comm. v. Democratic Nat'l

Comm., 589 U.S. ––––, ––––, 140 S. Ct. 1205, 1207, 206
L.Ed.2d 452 (2020) (per curiam), as a court order affecting
election rules will progressively increase the risk of “voter
confusion” as “an election draws closer.” Purcell, 549 U.S. at
4-5, 127 S.Ct. 5; see also Texas All. for Retired Americans
v. Hughs, ––– F.3d ––––, ––––, 2020 WL 5816887, at *2
(5th Cir. Sept. 30, 2020) (“The principle ... is clear: court
changes of election laws close in time to the election are
strongly disfavored.”). This year alone, the Purcell doctrine of
noninterference has been invoked by federal courts in cases
involving witness requirements and cure provisions during
COVID-19, Clark v. Edwards, Civil Action No. 20-283-SDDRLB, ––– F.Supp.3d ––––, –––– – ––––, 2020 WL 3415376,
at *1-2 (M.D. La. June 22, 2020); the implementation of an
all-mail election plan developed by county election officials,
Paher v. Cegavske, 2020 WL 2748301, at *1, *6 (D. Nev.
2020); and the use of college IDs for voting, Common Cause
v. Thomsen, No. 19-cv-323-JDP, 2020 WL 5665475, at *1
(W.D. Wis. Sept. 23, 2020) – just to name a few.
Purcell is not a per se rejection of any injunctive relief close
to an election. However, as the Supreme Court's restoration of
the South Carolina witness requirement last week illustrates,
a heavy thumb on the scale weighs against changes to voting
regulations. Andino v. Middleton, ––– U.S. ––––, ––– S.Ct.
––––, ––– L.Ed.2d ––––, 2020 WL 5887393, at *1 (Oct.
5, 2020) (Kavanaugh, J., concurring) (“By enjoining South
Carolina's witness requirement shortly before the election, the
District Court defied [the Purcell] principle and this Court's
precedents.”).
In this case, there are two SBE revisions where this court has
found that Plaintiffs are likely to succeed on the merits. First,
the Witness Requirement Cure Procedure, which determines
whether SBE will send the voter a cure certification or
spoil the ballot and issue a new one. This court has, on
separate grounds, already enjoined the Witness Requirement
Cure Procedure in Democracy North Carolina v. North
Carolina State Board of Elections, No. 1:20CV457, 2020
WL 6058048 (M.D.N.C. Oct. 14, 2020) (enjoining witness
cure procedure). Thus, the issue of injunctive relief on the
Witness Requirement Cure Procedure is moot at this time.
Nevertheless, in the absence of relief in Democracy, it seems
likely that SBE's creation of “preferred class[es] of voters”,
Gray, 372 U.S. at 380, 83 S.Ct. 801, with elimination of the
witness requirement and the cure procedure could merit relief
in this case.

2:20-cv-01771-PP
12/07/20
Page
20 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1641 Case

19

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

*23 Ripe for this court's consideration is the Receipt
Deadline Extension, which contradicts state statutes
regarding when a ballot may be counted. Ultimately, this
court will decline to enjoin the Receipt Deadline Extension,
in spite of its likely unconstitutionality and the potential for
irreparable injury. The Purcell doctrine dictates that this court
must “ordinarily” refrain from interfering with election rules.
Republican Nat'l Comm., 140 S. Ct. at 1207. These issues may
be taken up by federal courts after the election, or at any time
in state courts and the legislature. However, in the middle of
an election, less than a month before Election Day itself, this
court cannot cause “judicially created confusion” by changing
election rules. Id. Accordingly, this court declines to impose a
preliminary injunction because the balance of equities weighs
heavily against such an injunction.

... [T]he Court finds that the term “Legislature” is used in
a sufficiently similar context in both clauses to properly
afford the term an identical meaning in both instances.
Donald J. Trump for President, Inc. v. Bullock, No. CV 20-66H-DLC, ––– F.Supp.3d ––––, ––––, 2020 WL 5810556, at
*11 (D. Mont. Sept. 30, 2020). Nor do Plaintiffs assert any
difference in the meaning they assign to “Legislature” and its
authority between the two Clauses.
This court finds that all Plaintiffs lack standing under either
Clause. The discussion infra of the Elections Clause applies
equally to the Electors Clause.

1. Elections Clause
E. Plaintiffs’ Electors Clause and Elections Clause
Claims
As an initial matter, this court will address the substantive
issues of the Electors Clause and the Elections Clause
together. The Electors Clause of the U.S. Constitution
requires “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors” for
President. U.S. Const. art. II, § 1, cl. 2. Plaintiffs in Wise
argue that, in order to “effectuate” this Electors requirement,
“the State must complete its canvas of all votes cast by three
weeks after the general election” under N.C. Gen. Stat. §
163-182.5(c). (Wise Pls.’ Mot. (Doc. 43) at 15.) Plaintiffs
argue that (1) the extension of the ballot receipt deadline
and (2) the changing of the postmark requirement “threaten
to extend the process and threaten disenfranchisement,” as
North Carolina “must certify its electors by December 14 or
else lose its voice in the Electoral College. (Id.)
The meaning of “Legislature” within the Electors Clause can
be analyzed in the same way as “Legislature” within the
Elections Clause. For example,
As an initial matter, the Court finds no need to distinguish
between the term ‘Legislature’ as it is used in the
Elections Clause as opposed to the Electors Clause.
Not only were both these clauses adopted during the
1787 Constitutional Convention, but the clauses share a
“considerable similarity.
....

a. Standing
The Elections Clause standing analysis differs in Moore
and Wise, though this court ultimately arrives at the same
conclusion in both cases.

i. Standing in Wise
In Wise, Plaintiffs are private parties clearly established by
Supreme Court precedent to have no standing to contest
the Elections Clause in this manner. Plaintiffs are individual
voters, a campaign committee, national political parties, and
two Members of the U.S. House of Representatives. Even
though Plaintiffs are part of the General Assembly, they bring
their Elections Clause claim alleging an institutional harm to
the General Assembly. Though the Plaintiffs claim to have
suffered “immediate and irreparable harm”, (Wise Compl.
(Doc. 1) ¶¶ 100, 109), this does not establish standing for their
Elections Clause claim or Electors Clause claim. See Corman
v. Torres, 287 F. Supp. 3d 558, 573 (M.D. Pa. 2018) (“[T]he
Elections Clause claims asserted in the verified complaint
belong, if they belong to anyone, only to the ... General
Assembly.”). The Supreme Court has already held that a
private citizen does not have standing to bring an Elections
Clause challenge without further, more particularized harms.
See Lance, 549 U.S. at 441-42, 127 S.Ct. 1194 (“The only
injury [private citizen] plaintiffs allege is that ... the Elections
Clause ... has not been followed. This injury is precisely
the kind of undifferentiated, generalized grievance about the
conduct of government that we have refused to countenance

2:20-cv-01771-PP
12/07/20
Page
21 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1642 Case

20

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

in the past.”). Plaintiffs allege no such extra harms, and in
fact, do not speak to standing in their brief at all.

ii. Standing in Moore
*24 In Moore, both Plaintiff Moore and Plaintiff Berger
are leaders of chambers in the General Assembly. The
Plaintiffs allege harm stemming from SBE flouting the
General Assembly's institutional authority. (Wise Pls.’ Mot.
(Doc. 43) at 16.) However, as Proposed Intervenors NC
Alliance argue, “a subset of legislators has no standing to
bring a case based on purported harm to the Legislature as
a whole.” (Alliance Resp. (Doc. 64) at 15.) The Supreme
Court has held that legislative plaintiffs can bring Elections
Clause claims on behalf of the legislature itself only if they
allege some extra, particularized harm to themselves – or
some direct authority from the whole legislative body to bring
the legal claim. Specifically, the Supreme Court found a lack
of standing where “[legislative plaintiffs] have alleged no
injury to themselves as individuals”; where “the institutional
injury they allege is wholly abstract and widely disperse”; and
where the plaintiffs “have not been authorized to represent
their respective Houses of Congress in this action.” Raines v.
Byrd, 521 U.S. 811, 829, 117 S.Ct. 2312, 138 L.Ed.2d 849
(1997).
An opinion in a very similar case in the Middle District of
Pennsylvania is instructive:
[T]he claims in the complaint rest solely on the purported
usurpation of the Pennsylvania General Assembly's
exclusive rights under the Elections Clause of the United
States Constitution. We do not gainsay that these [two]
Senate leaders are in some sense aggrieved by the
Pennsylvania Supreme Court's actions. But that grievance
alone does not carry them over the standing bar. United
States Supreme Court precedent is clear — a legislator
suffers no Article III injury when alleged harm is borne
equally by all members of the legislature.
Corman, 287 F. Supp. 3d at 567. In the instant case, the two
members of the legislature do not allege individual injury. The
institutional injury they allege is dispersed across the entire
General Assembly. The crucial element, then, is whether
Moore and Berger are authorized by the General Assembly to
represent its interests. The General Assembly has not directly
authorized Plaintiffs to represent its interests in this specific
case. See Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm'n, 576 U.S. 787, 802, 135 S.Ct. 2652, 192 L.Ed.2d

704 (2015) (finding plaintiff “[t]he Arizona Legislature” had
standing in an Elections Clause case only because it was
“an institutional plaintiff asserting an institutional injury”
which “commenced this action after authorizing votes in
both of its chambers”). Moore and Berger argued the general
authorization in N.C. Gen. Stat. Section 120-32.6(b), which
explicitly authorizes them to represent the General Assembly
“[w]henever the validity or constitutionality of an act of the
General Assembly or a provision of the Constitution of North
Carolina is the subject of an action in any State or federal
court.” N.C. Gen. Stat. § 120-32.6(b). The text of § 120-32.6
references N.C. Gen. Stat. § 1-72.2, which further specifies
that Plaintiffs will “jointly have standing to intervene on
behalf of the General Assembly as a party in any judicial
proceeding challenging a North Carolina statute or provision
of the North Carolina Constitution.” (emphasis added).
Neither statute, however, authorizes them to represent the
General Assembly as a whole when acting as plaintiffs
in a case such as this one. See N.C. State Conference
of NAACP v. Berger, 970 F.3d 489, 501 (4th Cir. 2020)
(granting standing to Moore and Berger in case where
North Carolina law was directly challenged, distinguishing
“execution of the law” from “defense of a challenged act”).
The facts of this case do not match up with this court's
prior application of N.C. Gen. Stat. § 1-72.2, which has
been invoked where legislators defend the constitutionality
of legislation passed by the legislature when the executive
declines to do so. See Fisher-Borne v. Smith, 14 F. Supp.
3d 699, 703 (M.D.N.C. 2014). Furthermore, to the extent
Plaintiffs Moore and Berger disagree with the challenged
provisions of the Consent Judgment, they have not alleged
they lack the authority to bring the legislature back into
session to negate SBE's exercise of settlement authority. See
N.C. Gen. Stat. § 163-22.2.
*25 Thus, even Plaintiff Moore and Plaintiff Berger
lack standing to proceed with the Elections Clause claim.
Nonetheless, this court will briefly address the merits as well.

2. Merits of Elections Clause Claim
a. The ‘Legislature’ May Delegate to SBE
The Elections Clause of the U.S. Constitution states that the
“Times, Places, and Manner of holding Elections for Senators
and Representatives, shall be prescribed in each State by the
Legislature thereof.” U.S. Const. art. I, § 4, cl. 1. Plaintiffs

2:20-cv-01771-PP
12/07/20
Page
22 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1643 Case

21

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

assert that the General Assembly instituted one such time/
place/manner rule regarding the election by passing H.B.
1169. Therefore, Plaintiffs argue, SBE “usurped the General
Assembly's authority” when it “plainly modif[ied]” what the
General Assembly had implemented. (Wise Pls.’ Mot. (Doc.
43) at 14.)
The Elections Clause certainly prevents entities other than the
legislature from unilaterally tinkering with election logistics
and procedures. However, Plaintiffs fail to establish that the
Elections Clause forbids the legislature itself from voluntarily
delegating this authority. The “Legislature” of a state may
constitutionally delegate the power to implement election
rules – even rules that may contradict previously enacted
statutes.
State legislatures historically have the power and ability
to delegate their legislative authority over elections and
remain in compliance with the Elections Clause. Ariz.
State Legislature, 576 U.S. at 816, 135 S.Ct. 2652
(noting that, despite the Elections Clause, “States retain
autonomy to establish their own governmental processes”).
Here, the North Carolina General Assembly has delegated
some authority to SBE to contravene previously enacted
statutes, particularly in the event of certain “unexpected
circumstances.” (SBE Resp. (Doc. 65) at 15.)
The General Assembly anticipated that SBE may need to
implement rules that would contradict previously enacted
statutes. See N.C. Gen. Stat. § 163-27.1(a) (“In exercising
those emergency powers, the Executive Director shall
avoid unnecessary conflict with the provisions of this
Chapter.” (emphasis added)). Plaintiffs claim that “[t]he
General Assembly could not, consistent with the Constitution
of the United States, delegate to the Board of Elections the
power to suspend or re-write the state's election laws.” (Wise
Compl. (Doc. 1) ¶ 97.) This would mean that the General
Assembly could not delegate any emergency powers to SBE.
For example, if a hurricane wiped out all the polling places in
North Carolina, Plaintiffs’ reading of the Constitution would
prohibit the legislature from delegating to SBE any power
to contradict earlier state law regarding election procedures.
(See SBE Resp. (Doc. 65) at 15).
As courts have adopted a broad understanding of
“Legislature” as written in the Elections Clause, see Corman,
287 F. Supp. 3d at 573, it follows that a valid delegation
from the General Assembly allowing SBE to override the
General Assembly in certain circumstances would not be

unconstitutional. See Donald J. Trump for President, –––
F.Supp.3d at ––––, 2020 WL 5810556, at *12 (finding that
the legislature's “decision to afford” the Governor certain
statutory powers to alter the time/place/manner of elections
was legitimate under the Elections Clause).

b. Whether SBE Exceeded Legitimate Delegated Powers
*26 The true question becomes, then, whether SBE was
truly acting within the power legitimately delegated to
it by the General Assembly. Even Proposed Intervenors
NC Alliance note that SBE's actions “could ... constitute
plausible violations of the Elections Clause if they
exceeded the authority granted to [SBE] by the General
Assembly.” (Alliance Resp. (Doc. 64) at 19.)
SBE used two sources of authority to enter into the Consent
Agreement changing the laws and rules of the election process
after it had begun: N.C. Gen. Stat. § 163-22.2 and § 163-27.1.

i. SBE's Authority to Avoid Protracted Litigation
First, this court finds that, while N.C. Gen. Stat. § 163-22.2
authorizes agreements in lieu of protracted litigation, it does
not authorize the extensive measures taken in the Consent
Agreement:
In the event any portion of Chapter 163 of the General
Statutes or any State election law or form of election of any
county board of commissioners, local board of education,
or city officer is held unconstitutional or invalid by a State
or federal court or is unenforceable because of objection
interposed by the United States Justice Department under
the Voting Rights Act of 1965 and such ruling adversely
affects the conduct and holding of any pending primary or
election, the State Board of Elections shall have authority to
make reasonable interim rules and regulations with respect
to the pending primary or election as it deems advisable
so long as they do not conflict with any provisions of
this Chapter 163 of the General Statutes and such rules
and regulations shall become null and void 60 days
after the convening of the next regular session of the
General Assembly. The State Board of Elections shall
also be authorized, upon recommendation of the Attorney
General, to enter into agreement with the courts in lieu
of protracted litigation until such time as the General
Assembly convenes.

2:20-cv-01771-PP
12/07/20
Page
23 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1644 Case

22

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

N.C. Gen. Stat. § 163-22.2. While the authority delegated
under this statute is broad, it limits SBE's powers to
implementing rules that “do not conflict with any provisions
of this Chapter.” Moreover, this power appears to exist only
“until such time as the General Assembly convenes.” Id. By
eliminating the witness requirement, SBE implemented a rule
that conflicted directly with the statutes enacted by the North
Carolina legislature.
Moreover, SBE's power to “enter into agreement with
the courts in lieu of protracted litigation” is limited by
the language “until such time as the General Assembly
convenes.” Id. Plaintiffs appear to have a remedy to what they
contend is an overreach of SBE authority by convening.

ii. SBE's Power to Override the Legislature in an
Emergency
Second, Defendants rely upon N.C. Gen. Stat. § 163-27.1.
That statute provides:
(a) The Executive Director, as chief State elections official,
may exercise emergency powers to conduct an election
in a district where the normal schedule for the election is
disrupted by any of the following:
(1) A natural disaster.
(2) Extremely inclement weather.
(3) An armed conflict involving Armed Forces of the
United States, or mobilization of those forces, including
North Carolina National Guard and reserve components
of the Armed Forces of the United States.
N.C. Gen. Stat. § 163-27.1(a)(1-3). As neither (a)(2) or (3)
apply, the parties agree that only (a)(1), a natural disaster, is at
issue in this case. On March 10, 2020, the Governor of North
Carolina declared a state of emergency as a result of the spread
of COVID-19. N.C. Exec. Order No. 116 (March 10, 2020).
Notably, the Governor did not declare a disaster pursuant to
N.C. Gen. Stat. § 166A-19.21. Instead, on March 25, 2020, it
was the President of the United States who declared a state of
disaster existed in North Carolina:
*27 I have determined that the emergency conditions in
the State of North Carolina resulting from the Coronavirus
Disease 2019 (COVID-19) pandemic beginning on January
20, 2020, and continuing, are of sufficient severity and
magnitude to warrant a major disaster declaration under

the Robert T. Stafford Disaster Relief and Emergency
Assistance Act, 42 U.S.C. 5121 et seq. (the “Stafford Act”).
Therefore, I declare that such a major disaster exists in the
State of North Carolina.
Notice, North Carolina; Major Disaster and Related
Determinations, 85 Fed. Reg. 20701 (Mar. 25, 2020)
(emphasis added). The President cited the Stafford Act as
justification for declaring a major disaster. See 42 U.S.C.
§ 5122(2). Notably, neither the Governor's Emergency
Proclamation nor the Presidential Proclamation identified
COVID-19 as a natural disaster.
On March 12, 2020, the Executive Director of SBE, Karen
Brinson Bell (“Bell”), crafted an amendment to SBE's
Emergency Powers rule. Bell's proposed rule change provided
as follows:
(a) In exercising his or her emergency powers and
determining whether the “normal schedule” for the election
has been disrupted in accordance with G.S. 163A-750 ,
163-27.1, the Executive Director shall consider whether
one or more components of election administration has
been impaired. The Executive Director shall consult
with State Board members when exercising his or her
emergency powers if feasible given the circumstances set
forth in this Rule.
(b) For the purposes of G.S. 163A 750 , 163-27.1, the
following shall apply:
(1) A natural disaster or extremely inclement weather
include a: any of the following:
(A) Hurricane;
(B) Tornado;
(C) Storm or snowstorm;
(D) Flood;
(E) Tidal wave or tsunami;
(F) Earthquake or volcanic eruption;
(G) Landslide or mudslide; or
(H) Catastrophe arising from natural causes resulted
and resulting in a disaster declaration by the President
of the United States or the Governor. Governor, a
national emergency declaration by the President of
the United States, or a state of emergency declaration

2:20-cv-01771-PP
12/07/20
Page
24 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1645 Case

23

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

issued under G.S. 166A-19.3(19). “Catastrophe
arising from natural causes” includes a disease
epidemic or other public health incident. The disease
epidemic or other public health incident must make
[that makes ] it impossible or extremely hazardous
for elections officials or voters to reach or otherwise
access the voting [place or that creates ] place, create
a significant risk of physical harm to persons in the
voting place, or [that ] would otherwise convince a
reasonable person to avoid traveling to or being in a
voting place.
https://files nc.gov/ncoah/documents/Rules/RRC/06182020Follow-up-Tab-B-Board-of-Elections.pdf at 5 (proposed
changes in strikethroughs, or underline.) Shortly after
submitting the rule change, effective March 20, 2020, SBE
declared COVID-19 a natural disaster, attempting to invoke
its authority under the Emergency Powers Statute, § 163-27.1.
However, the Rules Review Commission subsequently
unanimously rejected Bell's proposed rule change, finding in
part that there was a “lack of statutory authority as set forth
in G.S. 150B-21.9(a)(1),” and more specifically, that “the
[SBE] does not have the authority to expand the definition
of ‘natural disaster’ as proposed.” North Carolina Office
of Administrative Hearings, Rules Review Commission
Meeting Minutes (May 21, 2020), at 4 https://files nc.gov/
ncoah/Minutes-May-2020.pdf.
In a June 12, 2020 letter, the Rules Review Commission
Counsel indicated that Bell had responded to the
committee's findings by stating “that the agency will not
be submitting a new statement or additional findings,”
and, as a result, “the Rule [was] returned” to the agency.
Letter re: Return of Rule 08 NCAC 01.0106 (June
12, 2020) at 1 https://files nc.gov/ncoah/documents/Rules/
RRC/06182020-Follow-up-Tab-B-Board-of-Elections.pdf.
Despite the Rules Review Commission's rejection of Bell's
proposed changes, on July 17, 2020, Bell issued an
Emergency Order with the following findings:
*28 18. N.C. Gen. Stat. § 163-27.1 and 08 NCAC
01. 0106 authorize me to exercise emergency powers to
conduct an election where the normal schedule is disrupted
by a catastrophe arising from natural causes that has
resulted in a disaster declaration by the President of the
United States or the Governor, while avoiding unnecessary
conflict with the laws of North Carolina. The emergency
remedial measures set forth here are calculated to offset
the nature and scope of the disruption from the COVID-19
disaster.

19. Pursuant to N.C. Gen. Stat. § 163-27.1 and 08
NCAC 01. 0106(a) and (b), and after consultation with
the State Board, I have determined that the COVID-19
health emergency is a catastrophe arising from natural
causes — i.e., a naturally occurring virus — resulting
in a disaster declaration by the President of the United
States and a declaration of a state of emergency by the
Governor, and that the disaster has already disrupted and
continues to disrupt the schedule and has already impacted
and continues to impact multiple components of election
administration.
(Democracy N. Carolina, No. 1:20CV457 (Doc. 101-1) ¶¶
18-19.) This directly contradicted the Rules Commission's
finding that such a change was outside SBE's authority.
In keeping with Bell's actions, the State failed to note in
argument before this court that Bell's proposal had been
rejected explicitly because SBE lacked statutory authority
to exercise its emergency powers. In fact, at the close of
a hearing before this court, the State made the following
arguments:
but the Rules Review Commission declined to let it go
forward as a temporary rule, I think I'm remembering this
right, without stating why. But it did not go through.
In the meantime, the president had declared a state of
national -- natural disaster declaration. The president had
declared a disaster declaration, so under the existing rule,
the powers kicked into place.
....
And the statute that does allow her to make those
emergency decisions says in it, in exercising those
emergency decisions says in it, in exercising those
emergency powers, the Executive Director shall avoid
unnecessary conflict with the provisions of this chapter, this
chapter being Chapter 163 of the election laws.
(Democracy N. Carolina, No. 1:20CV457, Evidentiary Hr'g
Tr. vol. 3 (Doc. 114) at 109.) This court agrees with
the Rules Review Commission: re-writing the definition of
“natural disaster” is outside SBE's rulemaking authority. N.C.
Gen. Stat. § 163-27.1(a)(1) limits the Executive Director's
emergency powers to those circumstances where “the normal
schedule for the election is disrupted by any of the following:
(1) A natural disaster.”7
Nor does the President's major disaster proclamation define
COVID-19 as a “natural disaster” – at least not as

2:20-cv-01771-PP
12/07/20
Page
25 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1646 Case

24

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

contemplated by the state legislature when § 163-27.1 (or its
predecessor, § 163A-750) was passed. To the contrary, the
Emergency Powers are limited to an election “in a district
where the normal schedule for the election is disrupted.” N.C.
Gen. Stat. § 163-27.1(a). Nothing about COVID-19 disrupts
the normal schedule for the election as might be associated
with hurricanes, tornadoes, or other natural disasters.

(a) Elimination of the Witness Requirement
Finally, even if, as SBE argues, it had the authority to enter
into a Consent Agreement under its emergency powers, it
did not have the power to contradict statutory authority by
eliminating the witness requirement. See N.C. Gen. Stat.
§ 163-27.1(a) (“In exercising those emergency powers, the
Executive Director shall avoid unnecessary conflict with
the provisions of this Chapter.”) (emphasis added). The
legislature implemented a witness requirement and SBE
removed that requirement. This is certainly an unnecessary
conflict with the legislature's choices.
*29 By the State's own admission, any ballots not subject to
witnessing would be unverified. The State of North Carolina
argued as much in urging this court to uphold the one-witness
requirement:
As Director Bell testified, it is a basic bedrock principle
of elections that you have some form of verifying that the
voter is who they say they are; voter verification. As she
said, when a voter comes into the poll, whether that is on
election day proper or whether it is by –
....
Obviously, you can't do that when it is an absentee ballot.
Because you don't see the voter, you can't ask the questions.
So the witness requirement, the purpose of it is to have
some means that the person who sent me this is the person
-- the person who has sent this absentee ballot is who they
say they are. That's the purpose of the witness requirement.
The witness is witnessing that they saw this person, and
they know who they are, that they saw this person fill out
the ballot and prepare the ballot to mail in. And that is the
point of it.
And, as Director Bell testified, I mean, we've heard a lot
from the Plaintiffs about how many states do not have
witness requirements. And that is true, that the majority

of states, I think at this point, do not have a witness
requirement.
But as Director Bell testified, they're going to have one
of two things. They're going to either have the witness
requirement, or they're going to have a means of verifying
the signature ....
One thing -- and I think that is unquestionably an important
State interest. Some means of knowing that this ballot that
says it came from Alec Peters actually is from Alec Peters,
because somebody else put their name down and said, yes,
I saw Alec Peters do this. I saw him fill out this ballot.
Otherwise, we have no way of knowing who the ballot -whether the ballot really came from the person who voted.
It is there to protect the integrity of the elections process,
but it is also there to protect the voter, to make sure that
the voter knows -- everybody knows that the voter is who
they say they are, and so that somebody else is not voting
in their place.
Additionally, it is a tool for dealing with voter fraud.
(Democracy N. Carolina, No. 1:20CV457, Evidentiary Hr'g
Tr. vol. 3 (Doc. 114) at 111-12.) In this hearing, the State
continued on to note that “there needs to be some form of
verification of who the voter is,” which can “either be through
a witness requirement or ... through signature verification,”
but “it needs to be one or the other.” (Id. at 115-16.)
Losing the witness requirement, according to the State, would
mean having “no verification.” (Id. at 116.) Contravening a
legislatively implemented witness requirement and switching
to a system of “no verification,” (id.), was certainly not a
necessary conflict under § 163-27.1(a).
SBE argues that this court does not have authority to address
how this switch contradicted state law and went outside its
validly delegated emergency powers. This is a state law issue,
as the dispute is over the extent of the Executive Director's
authority as granted to her by the North Carolina Legislature.
The State claims that, since a North Carolina Superior Court
Judge has approved this exercise of authority, this court is
obligated to follow that state court judgment. (SBE Resp.
(Doc. 65) at 16.)
*30 However, when the Supreme Court of a state has not
spoken, federal courts must predict how that highest court
would rule, rather than automatically following any state
court that might have considered the question first. See Doe v.
Marymount Univ., 297 F. Supp. 3d 573, 590 (E.D. Va. 2018)

2:20-cv-01771-PP
12/07/20
Page
26 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1647 Case

25

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

(“[F]ederal courts are not bound to follow state trial court
decisions in exercising their supplemental jurisdiction.”). The
Fourth Circuit has addressed this issue directly in diversity
jurisdiction contexts as well:
a federal court sitting in diversity is not bound by a state
trial court's decision on matters of state law. In King
v. Order of United Commercial Travelers of America,
333 U.S. 153, 68 S. Ct. 488, 92 L. Ed. 608 (1948),
the Supreme Court upheld the Fourth Circuit's refusal to
follow an opinion issued by a state trial court in a South
Carolina insurance case. The Court concluded, “a Court of
Common Pleas does not appear to have such importance
and competence within South Carolina's own judicial
system that its decisions should be taken as authoritative
expositions of that State's ‘law.’ ” Id. at 161, 68 S. Ct. 488.
Twin City Fire Ins. Co. v. Ben Arnold-Sunbelt Beverage Co.
of S.C., 433 F.3d 365, 370 (4th Cir. 2005). In other words,
this court's job is to predict how the Supreme Court of North
Carolina would rule on the disputed state law question. Id. at
369 (“If the Supreme Court of [North Carolina] has spoken
neither directly nor indirectly on the particular issue before
us, [this court is] called upon to predict how that court would
rule if presented with the issue.”)(quotation omitted); Carter
v. Fid. Life Ass'n, 339 F. Supp. 3d 551, 554 (E.D.N.C.), aff'd,
740 F. App'x 41 (4th Cir. 2018) (“Accordingly, the court
applies North Carolina law, and the court must determine
how the Supreme Court of North Carolina would rule.”).
In predicting how the North Carolina Supreme Court might
decide, this court “consider[s] lower court opinions in [North
Carolina], the teachings of treatises, and the practices of other
states.” Twin City Fire Ins. Co., 433 F.3d at 369. This court
“follow[s] the decision of an intermediate state appellate court
unless there is persuasive data that the highest court would
decide differently.” Town of Nags Head v. Toloczko, 728 F.3d
391, 397-98 (4th Cir. 2013).
In all candor, this court cannot conceive of a more problematic
conflict with the provisions of Chapter 163 of the North
Carolina General Statutes than the procedures implemented
by the Revised 2020-19 memo and the Consent Order.
Through this abandonment of the witness requirement, some

class of voters will be permitted to submit ballots with
no verification. Though SBE suggests that its “cure” is
sufficient to protect against voter fraud, the cure provided
has few safeguards: it asks only if the voter “voted” with no
explanation of the manner in which that vote was exercised.
(Moore v. Circosta, No. 1:20CV911, State Court Consent
Judgment (Doc. 45-1) at 34.) This court believes this is in
clear violation of SBE's powers, even its emergency powers
under N.C. Gen. Stat. § 163-27.1(a). However, none of this
changes the fact that Plaintiffs in both Wise and Moore lack
standing to challenge the legitimacy of SBE's election rulesetting power under either the Elections Clause or the Electors
Clause.
III. CONCLUSION
This court believes the unequal treatment of voters and the
resulting Equal Protection violations as found herein should
be enjoined. Nevertheless, under Purcell and recent Supreme
Court orders relating to Purcell, this court is of the opinion
that it is required to find that injunctive relief should be
denied at this late date, even in the face of what appear to
be clear violations. For the foregoing reasons, this court finds
that in Moore v. Circosta, No. 1:20CV911, Plaintiffs’ Motion
for Preliminary Injunction should be denied. This court also
finds that in Wise v. N. Carolina State Bd. of Elections, No.
1:20CV912, the Plaintiffs’ Motion to Convert the Temporary
Restraining Order into a Preliminary Injunction should be
denied.
*31 IT IS THEREFORE ORDERED that Plaintiffs’
Motion for Preliminary Injunction in Moore v. Circosta, No.
1:20CV911, (Doc. 60), is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’ Motion to
Convert the Temporary Restraining Order into a Preliminary
Injunction in Wise v. N. Carolina State Bd. of Elections, No.
1:20CV912, (Doc. 43), is DENIED.
All Citations
--- F.Supp.3d ----, 2020 WL 6063332

Footnotes

1
2
3

All citations in this Memorandum Opinion and Order to documents filed with the court refer to the page numbers located
at the bottom right-hand corner of the documents as they appear on CM/ECF.
In Democracy N. Carolina v. N.C. State Board of Elections, No. 1:20CV457, an order is entered contemporaneously with
this Memorandum Opinion and Order enjoining certain aspects of the Revised Memo 2020-19.
The Memoranda incorrectly cites this statute as N.C. Gen. Stat. § 163-223.6(a)(5).

2:20-cv-01771-PP
12/07/20
Page
27 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1648 Case

26

Moore v. Circosta, --- F.Supp.3d ---- (2020)
2020 WL 6063332

4
5

6

7

An additional discussion of the facts related to SBE's use of this court's order in obtaining a Consent Judgment is set
out in this court's order in Democracy v. North Carolina State Board of Elections, No. 1:20CV457, 2020 WL 6058048
(M.D.N.C. Oct. 14, 2020) (enjoining witness cure procedure).
Defendant SBE and Alliance Intervenors’ memoranda filed in opposition to Plaintiffs’ motions for a preliminary injunction
in Moore are identical to those that each party filed in Wise. (Compare SBE Resp. (Doc. 65) and Alliance Resp. (Doc.
64) with Wise, No. 1:20CV912 (Doc. 45) and Wise, No. 1:20CV912 (Doc. 47).) For clarity and ease, this court will cite
only to the briefs Defendant SBE and Alliance Intervenors filed in Moore in subsequent citations.
Plaintiffs do not challenge the use of the cure affidavit for ballot deficiencies generally, aside from arguing that the cure
affidavit circumvents the statutory Witness Requirement. (See Moore Compl. (Doc. 1) ¶ 93; Wise Compl. (Doc. 1) ¶ 124.)
Although not raised by Plaintiffs, this courts finds the indefiniteness of the cure affidavit language troubling as a means
of correcting even curable ballot deficiencies.
During oral arguments, Defendants did not and could not clearly define what it means to “vote,” (see, e.g., Oral Argument
Tr. (Doc. 70) at 130-32), which is all that the affidavit requires voters to attest that they have done. (Moore v. Circosta, No.
1:20CV911, State Court Consent Judgment (Doc. 45-1) at 34.) Under the vague “I voted” language used in the affidavit,
a voter who completed their ballot with assistance from an unauthorized individual; a voter who does not qualify for voting
assistance; or a voter who simply delegated the responsibility for completing their ballot to another person could truthfully
sign this affidavit, although all three acts are prohibited under state law. See N.C. Gen. Stat. § 163-226.3(a)(1). Because
the cure affidavit does not define what it means to vote, voters are permitted to decide what that means for themselves.
This presents additional Equal Protection concerns. A state must ensure that there is “no preferred class of voters but
equality among those who meet the basic qualifications.” Gray, 372 U.S. at 380, 83 S.Ct. 801. Because the affidavit
does not serve as an adequate means to ensure that voters did not engage in unauthorized ballot casting procedures,
inevitably, not all voters will be held to the same standards for casting their ballot. This is, by definition, arbitrary and
disparate treatment inconsistent with existing state law.
This court's concerns notwithstanding, however, Plaintiffs do not challenge the use of a cure affidavit in other contexts,
so this court will decline to enjoin the use of a cure affidavit beyond its application as an alternative for compliance with
the Witness Requirement.
Notably, Bell makes no finding as to whether this is a Type I, II, or III Declaration of Disaster, which would in turn limit
the term of the Disaster Declaration. See, e.g., N.C. Gen. Stat. § 166A-19.21.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/07/20
Page
28 of 28
Document 59-6
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1649 Case

27

EXHIBIT 7

1650 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 11 Document 59-7

OFFICE OF THE CLERK

110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 3, 2020

To:
R. George Burnett
Conway, Olejniczak & Jerry, SC
P.O. Box 23200
Green Bay, WI 54305-3200
James R. Troupis
Troupis Law Office, LLC
4126 Timber Lane
Cross Plains, WI 53528
Margaret C. Daun
Milwaukee County Corporation Counsel
901 N. 9th Street, Room 303
Milwaukee, WI 53233

Joshua L. Kaul
Thomas C. Bellavia
Colin T. Roth
Colin R. Stroud
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
David R. Gault
Assistant Corporation Counsel
Office of the Dane County Corporation
Counsel
210 Martin Luther King, Jr. Blvd., Room 419
Madison, WI 53703-3345
*Address list continued on page 9.

You are hereby notified that the Court has entered the following order:
No. 2020AP1971-OA

Trump v. Evers

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70, a
supporting legal memorandum, and an appendix have been filed on behalf of petitioners, Donald
J. Trump, et al. Responses to the petition have been filed by (1) Governor Tony Evers; (2) the
Wisconsin Elections Commission and its Chair, Ann S. Jacobs; (3) Scott McDonell, Dane County
Clerk, and Alan A. Arnsten and Joyce Waldrop, members of the Dane County Board of
Canvassers; and (4) George L. Christensen, Milwaukee County Clerk, and Timothy H. Posnanski,
Richard Baas, and Dawn Martin, members of the Milwaukee County Board of Canvassers. A nonparty brief in support of the petition has been filed by the Liberty Justice Center. A motion to
intervene, a proposed response of proposed respondents-intervenors, and an appendix have been
filed by the Democratic National Committee (DNC) and Margaret J. Andrietsch, Sheila Stubbs,

1651 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 11 Document 59-7

Page 2
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

Ronald Martin, Mandela Barnes, Khary Penebaker, Mary Arnold, Patty Schachtner, Shannon
Holsey, and Benjamin Wikler (collectively, “the Biden electors”). The court having considered
all of the filings,
IT IS ORDERED that the petition for leave to commence an original action is denied. One
or more appeals from the determination(s) of one or more boards of canvassers or from the
determination of the chairperson of the Wisconsin Elections Commission may be filed by an
aggrieved candidate in circuit court. Wis. Stat. § 9.01(6); and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.
BRIAN HAGEDORN, J. (concurring). I understand the impulse to immediately address
the legal questions presented by this petition to ensure the recently completed election was
conducted in accordance with the law. But challenges to election results are also governed by law.
All parties seem to agree that Wis. Stat. § 9.01 (2017–18)1 constitutes the “exclusive judicial
remedy” applicable to this claim. § 9.01(11). After all, that is what the statute says. This section
provides that these actions should be filed in the circuit court, and spells out detailed procedures
for ensuring their orderly and swift disposition. See § 9.01(6)–(8). Following this law is not
disregarding our duty, as some of my colleagues suggest. It is following the law.
Even if this court has constitutional authority to hear the case straightaway,
notwithstanding the statutory text, the briefing reveals important factual disputes that are best
managed by a circuit court.2 The parties clearly disagree on some basic factual issues, supported
at times by competing affidavits. I do not know how we could address all the legal issues raised
in the petition without sorting through these matters, a task we are neither well-positioned nor
institutionally designed to do. The statutory process assigns this responsibility to the circuit court.
Wis. Stat. § 9.01(8)(b) (“The [circuit] court shall separately treat disputed issues of procedure,
interpretations of law, and findings of fact.”).
We do well as a judicial body to abide by time-tested judicial norms, even—and maybe
especially—in high-profile cases. Following the law governing challenges to election results is no
threat to the rule of law. I join the court’s denial of the petition for original action so that the
petitioners may promptly exercise their right to pursue these claims in the manner prescribed by
the legislature.

1

All subsequent references to the Wisconsin Statutes are to the 2017–18 version.

2

The legislature generally can and does set deadlines and define procedures that
circumscribe a court’s competence to act in a given case. Village of Trempealeau v. Mikrut, 2004
WI 79, ¶9–10, 273 Wis. 2d 76, 681 N.W.2d 190. The constitution would obviously override these
legislative choices where the two conflict.

1652 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 11 Document 59-7

Page 3
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

PATIENCE DRAKE ROGGENSACK, C.J. (dissenting). Before us is an emergency
petition for leave to commence an original action brought by President Trump, Vice President
Pence and Donald Trump for President, Inc., against Governor Evers, the Wisconsin Elections
Commission (WEC), its members and members of both the Milwaukee County Board of
Canvassers and the Dane County Board of Canvassers. The Petitioners allege that the WEC and
election officials caused voters to violate various statutes in conducting Wisconsin's recent
presidential election. The Petitioners raised their concerns during recount proceedings in Dane
County and Milwaukee County. Their objections were overruled in both counties.
The Respondents argue, in part, that we lack subject matter jurisdiction because of the
"exclusive judicial remedy" provision found in Wis. Stat. § 9.01(11) (2017-18).3 Alternatively,
the Respondents assert that we should deny this petition because fact-finding is required, and we
are not a fact-finding tribunal.
I conclude that we have subject matter jurisdiction that enables us to grant the petition for
original action pending before us. Our jurisdiction arises from the Wisconsin Constitution and
cannot be impeded by statute. Wis. Const., art. VII, Section 3(2); City of Eau Claire v. Booth,
2016 WI 65, ¶7, 370 Wis. 2d 595, 882 N.W.2d 738. Furthermore, time is of the essence.
However, fact-finding may be central to our evaluation of some of the questions presented.
I agree that the circuit court should examine the record presented during the canvasses to make
factual findings where legal challenges to the vote turn on questions of fact. However, I dissent
because I would grant the petition for original action, refer for necessary factual findings to the
circuit court, who would then report its factual findings to us, and we would decide the important
legal questions presented.
I also write separately to emphasize that by denying this petition, and requiring both the
factual questions and legal questions be resolved first by a circuit court, four justices of this court
are ignoring that there are significant time constraints that may preclude our deciding significant
legal issues that cry out for resolution by the Wisconsin Supreme Court.
I. DISCUSSION
The Petitioners set out four categories of absentee votes that they allege should not have
been counted because they were not lawfully cast: (1) votes cast during the 14-day period for inperson absentee voting at a clerk's office with what are alleged to be insufficient written requests
for absentee ballots, pursuant to Wis. Stat. § 6.86(1)(b); (2) votes cast when a clerk has completed
information missing from the ballot envelope, contrary to Wis. Stat. § 6.87(6d); (3) votes cast by
those who obtained an absentee ballot after March 25, 2020 by alleging that they were indefinitely

3

All subsequent references to the Wisconsin Statutes are to the 2017–18 version.

1653 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 11 Document 59-7

Page 4
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

confined; and (4) votes cast in Madison at "Democracy in the Park" events on September 26 and
October 3, in advance of the 14-day period before the election, contrary to Wis. Stat. § 6.87.
Some of the Respondents have asserted that WEC has been advising clerks to add missing
information to ballot envelopes for years, so the voters should not be punished for following
WEC's advice. They make similar claims for the collection of votes more than 14 days before the
November 3 election.
If WEC has been giving advice contrary to statute, those acts do not make the advice lawful.
WEC must follow the law. We, as the law declaring court, owe it to the public to declare whether
WEC's advice is incorrect. However, doing so does not necessarily lead to striking absentee ballots
that were cast by following incorrect WEC advice. The remedy Petitioners seek may be out of
reach for a number of reasons.
Procedures by which Wisconsin elections are conducted must be fair to all voters. This is
an important election, but it is not the last election in which WEC will be giving advice. If we do
not shoulder our responsibilities, we leave future elections to flounder and potentially result in the
public's perception that Wisconsin elections are unfair. The Wisconsin Supreme Court can uphold
elections by examining the procedures for which complaint was made here and explaining to all
where the WEC was correct and where it was not.
I also am concerned that the public will misunderstand what our denial of the petition
means. Occasionally, members of the public seem to believe that a denial of our acceptance of a
case signals that the petition's allegations are either false or not serious. Nothing could be further
from the truth. Indeed, sometimes, we deny petitions even when it appears that a law has been
violated. Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶¶14–16, 393 Wis. 2d 629, 948 N.W.2d
877 (Roggensack, C.J., dissenting).
II. CONCLUSION
I conclude that we have subject matter jurisdiction that enables us to grant the petition for
original action pending before us. Our jurisdiction arises from the Wisconsin Constitution and
cannot be impeded by statute. Wis. Const., art. VII, Section 3(2); City of Eau Claire, 370 Wis. 2d
595, ¶7. Furthermore, time is of the essence.
However, fact-finding may be central to our evaluation of some of the questions presented.
I agree that the circuit court should examine the record presented during the canvasses to make
factual findings where legal challenges to the vote turn on questions of fact. However, I dissent
because I would grant the petition for original action, refer for necessary factual findings to the
circuit court, who would then report its factual findings to us, and we would decide the important
legal questions presented.
I am authorized to state that Justice ANNETTE KINGSLAND ZIEGLER joins this dissent.

1654 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 11 Document 59-7

Page 5
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

REBECCA GRASSL BRADLEY, J. (dissenting). "It is emphatically the province and
duty of the Judicial Department to say what the law is." Marbury v. Madison, 5 U.S. 137, 177
(1803). The Wisconsin Supreme Court forsakes its duty to the people of Wisconsin in declining
to decide whether election officials complied with Wisconsin's election laws in administering the
November 3, 2020 election. Instead, a majority of this court passively permits the Wisconsin
Elections Commission (WEC) to decree its own election rules, thereby overriding the will of the
people as expressed in the election laws enacted by the people's elected representatives. Allowing
six unelected commissioners to make the law governing elections, without the consent of the
governed, deals a death blow to democracy. I dissent.
The President of the United States challenges the legality of the manner in which certain
Wisconsin election officials directed the casting of absentee ballots, asserting they adopted and
implemented particular procedures in violation of Wisconsin law. The respondents implore this
court to reject the challenge because, they argue, declaring the law at this point would
"retroactively change the rules" after the election. It is THE LAW that constitutes "the rules" of
the election and election officials are bound to follow the law, if we are to be governed by the rule
of law, and not of men.
Under the Wisconsin Constitution, "all governmental power derives 'from the consent of
the governed' and government officials may act only within the confines of the authority the people
give them. Wis. Const. art. I, § 1." Wisconsin Legislature v. Palm, 2020 WI 42, ¶66, 391 Wis. 2d
497, 942 N.W.2d 900 (Rebecca Grassl Bradley, J., concurring). The Founders designed our
"republic to be a government of laws, and not of men . . . bound by fixed laws, which the people
have a voice in making, and a right to defend." John Adams, Novanglus: A History of the Dispute
with America, from Its Origin, in 1754, to the Present Time, in Revolutionary Writings of John
Adams (C. Bradley Thompson ed. 2000) (emphasis in original). Allowing any person, or
unelected commission of six, to be "bound by no law or limitation but his own will" defies the will
of the people. Id.
The importance of having the State's highest court resolve the significant legal issues
presented by the petitioners warrants the exercise of this court's constitutional authority to hear
this case as an original action.
See Wis. Const. Art. VII, § 3.
"The purity
and integrity of elections is a matter of such prime importance, and affects so many important
interests, that the courts ought never to hesitate, when the opportunity is offered, to test them by
the strictest legal standards." State v. Conness, 106 Wis. 425, 82 N.W. 288, 289 (1900). While
the court reserves this exercise of its jurisdiction for those original actions of statewide
significance, it is beyond dispute that "[e]lections are the foundation of American government and
their integrity is of such monumental importance that any threat to their validity should trigger not
only our concern but our prompt action." State ex rel. Zignego v. Wis. Elec. Comm'n, 2020AP123W (S. Ct. Order issued June 1, 2020 (Rebecca Grassl Bradley, J., dissenting)).
The majority notes that an action "may be filed by an aggrieved candidate in circuit court.
Wis. Stat. § 9.01(6)." Justice Hagedorn goes so far as to suggest that § 9.01 "constitutes the
'exclusive judicial remedy' applicable to this claim." No statute, however, can circumscribe the

1655 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 11 Document 59-7

Page 6
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

constitutional jurisdiction of the Wisconsin Supreme Court to hear this (or any) case as an original
action. "The Wisconsin Constitution IS the law—and it reigns supreme over any statute."
Wisconsin Legislature v. Palm, 391 Wis. 2d 497, ¶67 n.3 (Rebecca Grassl Bradley, J., concurring).
"The Constitution's supremacy over legislation bears repeating: 'the Constitution is to be
considered in court as a paramount law' and 'a law repugnant to the Constitution is void, and . . .
courts, as well as other departments, are bound by that instrument.' See Marbury [v. Madison], 5
U.S. (1 Cranch) [137] at 178, 180 [1803])." Mayo v. Wis. Injured Patients and Families Comp.
Fund, 2018 WI 78, ¶91, 383 Wis. 2d 1, 914 N.W.2d 678 (Rebecca Grassl Bradley, J., concurring).
Wisconsin Statute § 9.01 is compatible with the constitution. While it provides an avenue for
aggrieved candidates to pursue an appeal to a circuit court after completion of the recount
determination, it does not foreclose the candidate's option to ask this court to grant his petition for
an original action. Any contrary reading would render the law in conflict with the constitution and
therefore void. Under the constitutional-doubt canon of statutory interpretation, "[a] statute should
be interpreted in a way that avoids placing its constitutionality in doubt." Antonin Scalia & Brian
A. Garner, Reading Law: The Interpretation of Legal Texts 247. See also Wisconsin Legislature
v. Palm, 391 Wis. 2d 497, ¶31 ("[W]e disfavor statutory interpretations that unnecessarily raise
serious constitutional questions about the statute under consideration.").
While some will either celebrate or decry the court's inaction based upon the impact on
their preferred candidate, the importance of this case transcends the results of this particular
election. "Confidence in the integrity of our electoral processes is essential to the functioning of
our participatory democracy." Purcell v. Gonzalez, 549 U.S. 1, 4 (2006). The majority takes a
pass on resolving the important questions presented by the petitioners in this case, thereby
undermining the public's confidence in the integrity of Wisconsin's electoral processes not only
during this election, but in every future election. Alarmingly, the court's inaction also signals to
the WEC that it may continue to administer elections in whatever manner it chooses, knowing that
the court has repeatedly declined to scrutinize its conduct. Regardless of whether the WEC's
actions affect election outcomes, the integrity of every election will be tarnished by the public's
mistrust until the Wisconsin Supreme Court accepts its responsibility to declare what the election
laws say. "Only . . . the supreme court can provide the necessary clarity to guide all election
officials in this state on how to conform their procedures to the law" going forward. State ex rel.
Zignego v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca
Grassl Bradley, J., dissenting)).
The majority's recent pattern of deferring or altogether dodging decisions on election law
controversies4 cannot be reconciled with its lengthy history of promptly hearing cases involving
4

Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶¶84, 86, 393 Wis. 2d 629, 948 N.W.2d 877
(Rebecca Grassl Bradley, J., dissenting) ("The majority upholds the Wisconsin Elections
Commission's violation of Wisconsin law, which irrefutably entitles Howie Hawkins and Angela
Walker to appear on Wisconsin's November 2020 general election ballot as candidates for
President and Vice President of the United States . . . . In dodging its responsibility to uphold
the rule of law, the majority ratifies a grave threat to our republic, suppresses the votes of

1656 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 11 Document 59-7

Page 7
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

voting rights and election processes under the court's original jurisdiction or by bypassing the court
of appeals.5 While the United States Supreme Court has recognized that "a state indisputably has
a compelling interest in preserving the integrity of its election process[,]" Burson v. Freeman, 504
U.S. 191, 199 (1992), the majority of this court repeatedly demonstrates a lack of any interest in
doing so, offering purely discretionary excuses or no reasoning at all. This year, the majority in
Hawkins v. Wis. Elec. Comm'n declined to hear a claim that the WEC unlawfully kept the Green
Party's candidates for President and Vice President off of the ballot, ostensibly because the
majority felt the candidates' claims were brought "too late."6 But when litigants have filed cases
involving voting rights well in advance of Wisconsin elections, the court has "take[n] a pass,"

Wisconsin citizens, irreparably impairs the integrity of Wisconsin's elections, and undermines the
confidence of American citizens in the outcome of a presidential election"); State ex rel. Zignego
v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca Grassl
Bradley, J., dissenting)) ("In declining to hear a case presenting issues of first impression
immediately impacting the voting rights of Wisconsin citizens and the integrity of impending
elections, the court shirks its institutional responsibilities to the people who elected us to make
important decisions, thereby signaling the issues are not worthy of our prompt attention."); State
ex rel. Zignego v. Wis. Elec. Comm'n, 2020AP123-W (S. Ct. Order issued June 1, 2020 (Rebecca
Grassl Bradley, J., dissenting)) ("A majority of this court disregards its duty to the people we serve
by inexplicably delaying the final resolution of a critically important and time-sensitive case
involving voting rights and the integrity of Wisconsin's elections.").
5

See, e.g., NAACP v. Walker, 2014 WI 98, ¶¶1, 18, 357 Wis. 2d 469, 851
N.W.2d 262 (2014) (this court took jurisdiction of appeal on its own motion in order to decide
constitutionality of the voter identification act enjoined by lower court); Elections Bd. of
Wisconsin v. Wisconsin Mfrs. & Commerce, 227 Wis. 2d 650, 653, 670, 597 N.W.2d 721 (1999)
(this court granted bypass petition to decide whether express advocacy advertisements advocating
the defeat or reelection of incumbent legislators violated campaign finance laws, in absence of
cases interpreting applicable statutes); State ex rel. La Follette v. Democratic Party of United
States, 93 Wis. 2d 473, 480-81, 287 N.W.2d 519 (1980) (original action deciding whether
Wisconsin open primary system was binding on national political parties or infringed their freedom
of association), rev'd, Democratic Party of United States v. Wisconsin ex rel. La Follette, 450 U.S.
107 (1981); State ex rel. Reynolds v. Zimmerman, 22 Wis. 2d 544, 548, 126 N.W.2d 551 (1964)
(original action seeking to enjoin state from holding elections pursuant to legislative
apportionment alleged to violate constitutional rights); State ex rel. Broughton v. Zimmerman, 261
Wis. 398, 400, 52 N.W.2d 903 (1952) (original action to restrain the state from holding elections
based on districts as defined prior to enactment of reapportionment law), overruled in part by
Reynolds, 22 Wis. 2d 544; State ex rel. Conlin v. Zimmerman, 245 Wis. 475, 476, 15 N.W.2d 32
(1944) (original action to interpret statutes in determining whether candidate for Governor timely
filed papers to appear on primary election ballot).
6

Hawkins v. Wis. Elec. Comm'n, 2020 WI 75, ¶5, 393 Wis. 2d 629, 948 N.W.2d 877
(denying the petition for leave to commence an original action).

1657 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 11 Document 59-7

Page 8
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

thereby "irreparably den[ying] the citizens of Wisconsin a timely resolution of issues that impact
voter rights and the integrity of our elections." State ex rel. Zignego v. Wis. Elec. Comm'n,
2020AP123-W (S. Ct. Order issued January 13, 2020 (Rebecca Grassl Bradley, J., dissenting)).
Having neglected to identify any principles guiding its decisions, the majority leaves Wisconsin's
voters and candidates guessing as to when, exactly, they should file their cases in order for the
majority to deem them worthy of the court's attention.
The consequence of the majority operating by whim rather than rule is to leave the
interpretation of multiple election laws in flux—or worse yet, in the hands of the unelected
members of the WEC. "To be free is to live under a government by law . . . . Miserable is the
condition of individuals, danger is the condition of the state, if there is no certain law, or, which is
the same thing, no certain administration of the law . . . ." Judgment in Rex vs. Shipley, 21 St
Tr 847 (K.B. 1784) (Lord Mansfield presiding). The Wisconsin Supreme Court has an institutional
responsibility to decide important questions of law—not for the benefit of particular litigants, but
for citizens we were elected to serve. Justice for the people of Wisconsin means ensuring the
integrity of Wisconsin's elections. A majority of this court disregards its duty to the people of
Wisconsin, denying them justice.
"No aspect of the judicial power is more fundamental than the judiciary's exclusive
responsibility to exercise judgment in cases and controversies arising under the law." Gabler v.
Crime Victims Rights Bd., 2017 WI 67, ¶37, 376 Wis. 2d 147, 897 N.W.2d 384. Once again, a
majority of this court instead "chooses to sit idly by,"7 in a nationally important and time-sensitive
case involving voting rights and the integrity of Wisconsin's elections, depriving the people of
Wisconsin of answers to questions of statutory law that only the state's highest court may resolve.
The majority's "refusal to hear this case shows insufficient respect to the State of [Wisconsin], its
voters,"8 and its elections.
"This great source of free government, popular election, should be perfectly pure."
Alexander Hamilton, Speech at New York Ratifying Convention (June 21, 1788), in Debates on
the Federal Constitution 257 (J. Elliot ed. 1876). The majority's failure to act leaves an indelible
stain on our most recent election. It will also profoundly and perhaps irreparably impact all local,
statewide, and national elections going forward, with grave consequence to the State of Wisconsin
and significant harm to the rule of law. Petitioners assert troubling allegations of noncompliance
with Wisconsin's election laws by public officials on whom the voters rely to ensure free and fair
elections. It is not "impulse"9 but our solemn judicial duty to say what the law is that compels the
exercise of our original jurisdiction in this case. The majority's failure to embrace its duty (or even
United Student Aid Funds, Inc. v. Bible, 136 S. Ct. 1607, 1609 (2016) (Thomas, J.,
dissenting from the denial of certiorari).
7

8

County of Maricopa, Arizona v. Lopez-Valenzuela, 135 S. Ct. 2046, 2046 (2015)
(Thomas, J., dissenting from the denial of certiorari).
9

See Justice Hagedorn's concurrence.

1658 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 11 Document 59-7

Page 9
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

an impulse) to decide this case risks perpetuating violations of the law by those entrusted to follow
it. I dissent.
I am authorized to state that Chief Justice PATIENCE DRAKE ROGGENSACK and
Justice ANNETTE KINGSLAND ZIEGLER join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Andrew A. Jones
Andrew J. Kramer
James F. Cirincione
Hansen Reynolds LLC
301 N. Broadway St., Ste. 400
Milwaukee, WI 53202-2660
John W. McCauley
Hansen Reynolds LLC
10 E. Doty St. Ste 800
Madison, WI 53703
Jeffrey A. Mandell
Rachel E. Snyder
Stafford Rosenbaum LLP
222 W. Washington Avenue
Post Office Box 1784
Madison, WI 53701
Daniel R. Suhr
Liberty Justice Center
190 LaSalle St., Ste. 1500
Chicago, IL 60603
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street, Suite 500
Milwaukee, WI 53202

Charles G. Curtis
Michelle M. Umberger
Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Suite 201
Madison, WI 53703
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
Susman Godfrey LLP
1000 Louisiana Street
Suite 5100
Houston, TX 77002
Paul Smith
Campaign Legal Center
1101 14th Street NW, Suite 400
Washington, DC 20005
David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

Marc E. Elias

1659 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 11 Document 59-7

Page 10
December 3, 2020
No. 2020AP1971-OA

Trump v. Evers

John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005

Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

1660 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 11 Document 59-7

EXHIBIT 8

1661

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 7 Document 59-8

OFFICE OF THE CLERK
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

December 4, 2020

To:
Gregory M. Erickson
Erick G. Kaardal
Mohrmann, Kaardal and Erickson
150 S. 5th Street, Suite 3100
Minneapolis, MN 55414
Colin T. Roth
Thomas C. Bellavia
Colin R. Stroud
Brian P. Keenan
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857

Brian S. Levy
Katten & Temple
11512 N. Port Washington Road, Suite 101J
Mequon, WI 53092
Joseph S. Goode
Mark M. Leitner
John W. Halpin
Allison E. Laffey
Laffey, Leitner & Goode LLC
325 E. Chicago Street, Suite 200
Milwaukee, WI 53202
*Address list continued on page 5.

You are hereby notified that the Court has entered the following order:
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

A petition for leave to commence an original action under Wis. Stat. § (Rule) 809.70 and
a supplement thereto, a supporting legal memorandum, and supporting expert reports have been
filed on behalf of petitioners, Wisconsin Voters Alliance, et al. A response to the petition has been
filed by respondents, Wisconsin Elections Commission, Ann S. Jacobs, Mark L. Thomsen, Marge
Bostelman, Julie M. Glancey, Dean Knudsen, and Robert F. Spindell, and a separate response has
been filed by respondent Governor Tony Evers. Amicus briefs regarding the issue of whether to
grant leave to commence an original action have been filed by (1) Christine Todd Whitman, et al;
(2) the City of Milwaukee; (3) Wisconsin State Conference NAACP, et al.; and (4) the Center for
Tech and Civic Life. In addition, a motion to intervene has been filed by proposed intervenorrespondent, Democratic National Committee.
After considering all of the filings, we conclude that this petition does not satisfy our
standards for granting leave to commence an original action. Although the petition raises time-

1662

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 7 Document 59-8

Page 2
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

sensitive questions of statewide significance, “issues of material fact [would] prevent the court
from addressing the legal issues presented.” State ex rel. Ozanne v. Fitzgerald, 2011 WI 43, ¶19,
334 Wis. 2d 70, 798 N.W.2d 436 (Prosser, J., concurring). It is therefore not an appropriate case
in which to exercise our original jurisdiction. Accordingly,
IT IS ORDERED that the petition for leave to commence an original action is denied; and
IT IS FURTHER ORDERED that the motion to intervene is denied as moot.
BRIAN HAGEDORN, J., (concurring). The Wisconsin Voters Alliance and a group of
Wisconsin voters bring a petition for an original action raising a variety of questions about the
operation of the November 3, 2020 presidential election. Some of these legal issues may, under
other circumstances, be subject to further judicial consideration. But the real stunner here is the
sought-after remedy. We are invited to invalidate the entire presidential election in Wisconsin by
declaring it “null”—yes, the whole thing. And there’s more. We should, we are told, enjoin the
Wisconsin Elections Commission from certifying the election so that Wisconsin’s presidential
electors can be chosen by the legislature instead, and then compel the Governor to certify those
electors. At least no one can accuse the petitioners of timidity.
Such a move would appear to be unprecedented in American history. One might expect
that this solemn request would be paired with evidence of serious errors tied to a substantial and
demonstrated set of illegal votes. Instead, the evidentiary support rests almost entirely on the
unsworn expert report1 of a former campaign employee that offers statistical estimates based on
call center samples and social media research.
This petition falls far short of the kind of compelling evidence and legal support we would
undoubtedly need to countenance the court-ordered disenfranchisement of every Wisconsin voter.
The petition does not even justify the exercise of our original jurisdiction.
As an initial matter, the Wisconsin Supreme Court is not a fact-finding tribunal. Yet the
petition depends upon disputed factual claims. In other words, we couldn’t just accept one side’s
description of the facts or one side’s expert report even if we were inclined to believe them.2 That
alone means this case is not well-suited for an original action. The petition’s legal support is no
less wanting. For example, it does not explain why its challenge to various election processes
1

After filing their petition for original action, the Petitioners submitted a second expert
report. But the second report only provides additional computations based on the assumptions and
calculations in the initial expert report.
2

The Attorney General and Governor offer legitimate arguments that this report would not
even be admissible evidence under Wis. Stat. § 907.02 (2017-18).
All subsequent references to the Wisconsin Statutes are to the 2017-18 version.

1663

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 7 Document 59-8

Page 3
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

comes after the election, and not before. Nor does it grapple with how voiding the presidential
election results would impact every other race on the ballot, or consider the import of election
statutes that may provide the “exclusive remedy.”3 These are just a few of the glaring flaws that
render the petition woefully deficient. I therefore join the court’s order denying the original action.
Nonetheless, I feel compelled to share a further observation. Something far more
fundamental than the winner of Wisconsin’s electoral votes is implicated in this case. At stake, in
some measure, is faith in our system of free and fair elections, a feature central to the enduring
strength of our constitutional republic. It can be easy to blithely move on to the next case with a
petition so obviously lacking, but this is sobering. The relief being sought by the petitioners is the
most dramatic invocation of judicial power I have ever seen. Judicial acquiescence to such
entreaties built on so flimsy a foundation would do indelible damage to every future election. Once
the door is opened to judicial invalidation of presidential election results, it will be awfully hard to
close that door again. This is a dangerous path we are being asked to tread. The loss of public
trust in our constitutional order resulting from the exercise of this kind of judicial power would be
incalculable.
I do not mean to suggest this court should look the other way no matter what. But if there
is a sufficient basis to invalidate an election, it must be established with evidence and arguments
commensurate with the scale of the claims and the relief sought. These petitioners have come
nowhere close. While the rough and tumble world of electoral politics may be the prism through
which many view this litigation, it cannot be so for us. In these hallowed halls, the law must rule.
Our disposal of this case should not be understood as a determination or comment on the
merits of the underlying legal issues; judicial review of certain Wisconsin election practices may
be appropriate. But this petition does not merit further consideration by this court, much less grant
us a license to invalidate every single vote cast in Wisconsin’s 2020 presidential election.
I am authorized to state that Justices ANN WALSH BRADLEY, REBECCA FRANK
DALLET, and JILL J. KAROFSKY join this concurrence.
ROGGENSACK, C.J. (dissenting). It is critical that voting in Wisconsin elections not
only be fair, but that the public also perceives voting as having been fairly conducted.
This is the third time that a case filed in this court raised allegations about purely legal
questions that concern Wisconsin Elections Commission (WEC) conduct during the November 3,

3

See Wis. Stat. § 9.01(11) (providing that § 9.01 “constitutes the exclusive judicial remedy
for testing the right to hold an elective office as the result of an alleged irregularity, defect or
mistake committed during the voting or canvassing process”); Wis. Stat. § 5.05(2m)(k) (describing
“[t]he commission’s power to initiate civil actions” under § 5.05(2m) as the “exclusive remedy for
alleged civil violations of chs. 5 to 10 or 12”).

1664

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 7 Document 59-8

Page 4
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

2020, presidential election.4 This is the third time that a majority of this court has turned its back
on pleas from the public to address a matter of statewide concern that requires a declaration of
what the statutes require for absentee voting. I dissent and write separately because I have
concluded that the court has not meet its institutional responsibilities by repeatedly refusing to
address legal issues presented in all three cases.
I agree with Justice Hagedorn that we are not a circuit court, and therefore, generally, we
do not take cases for which fact-finding is required. Green for Wisconsin v. State Elections Bd.,
2006 WI 120, 297 Wis. 2d 300, 301, 723 N.W.2d 418. However, when the legal issue that we
wish to address requires it, we have taken cases that do require factual development, referring any
necessary factual determinations to a referee or to a circuit court. State ex rel. LeFebre v. Israel,
109 Wis. 2d 337, 339, 325 N.W.2d 899 (1982); State ex rel White v. Gray, 58 Wis. 2d 285, 286,
206 N.W.163 (1973).
We also have taken cases where the issues we wish to address are purely legal questions
for which no factual development is required in order to state what the law requires. Wisconsin
Legislature v. Palm, 2020 WI 42, 391 Wis. 2d 497, 942 N.W.2d 900. The statutory authority of
WEC is a purely legal question. There is no factual development required for us to declare what
the law requires in absentee voting.
Justice Hagedorn is concerned about some of the relief that Petitioners request. He begins
his concurrence saying, "the real stunner here is the sought after remedy." He next relates, "The
relief being sought by the petitioners is the most dramatic invocation of judicial power I have ever
seen." Then, he concludes with, "this petition does not merit further consideration by this court,
much less grant us a license to invalidate every single vote cast in Wisconsin’s 2020 presidential
election."5
Those are scary thoughts, but Justice Hagedorn has the cart before the horse in regard to
our consideration of this petition for an original action. We grant petitions to exercise our
jurisdiction based on whether the legal issues presented are of state wide concern, not based on the
remedies requested. Petition of Heil, 230 Wis. 428, 284 N.W.42 (1938).
Granting a petition does not carry with it the court's view that the remedy sought is
appropriate for the legal issues raised. Historically, we often do not provide all the relief requested.
Bartlett v. Evers, 2020 WI 68, ¶9, 393 Wis. 2d 172, 945 N.W.2d 685 (upholding some but not all
partial vetoes). There have been occasions when we have provided none of the relief requested by
the petitioner, but nevertheless declared the law. See Sands v. Menard, Inc., 2010 WI 96, ¶46, 328
Wis. 2d 647, 787 N.W.2d 384 (concluding that while reinstatement is the preferred remedy under
4

Trump v. Evers, No. 2020AP1971-OA, unpublished order (Wis. S. Ct. Dec. 3, 2020);
Mueller v. WEC, No. 2020AP1958-OA, unpublished order (Wis. S. Ct. Dec. 3, 2020) and
Wisconsin Voters Alliance v. WEC, No. 2020AP193-OA.
5

Justice Hagedorn forgets to mention that one form of relief sought by Petitioners is, "Any
other relief the Court deems appropriate."

1665

Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 7 Document 59-8

Page 5
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

Title VII, it is an equitable remedy that may or may not be appropriate); Coleman v. Percy, 96
Wis. 2d 578, 588-89, 292 N.W.2d 615 (1980) (concluding that the remedy Coleman sought was
precluded).
We have broad subject matter jurisdiction that enables us to grant the petition for original
action pending before us. Our jurisdiction is grounded in the Wisconsin Constitution. Wis. Const.,
art. VII, Section 3(2); City of Eau Claire v. Booth, 2016 WI 65, ¶7, 370 Wis. 2d 595, 882 N.W.2d
738.
I dissent because I would grant the petition and address the people of Wisconsin's concerns
about whether WEC's conduct during the 2020 presidential election violated Wisconsin statutes.
As I said as I began, it is critical that voting in Wisconsin elections not only be fair, but that the
public also perceives voting as having been fairly conducted. The Wisconsin Supreme Court
should not walk away from its constitutional obligation to the people of Wisconsin for a third time.
I am authorized to state that Justices ANNETTE KINGSLAND ZIEGLER and REBECCA
GRASSL BRADLEY join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

Address list continued:
Tearman Spencer
Mary L. Schanning
Scott F. Brown
Kathryn Z. Block
Patrick J. McClain
Tyrone M. St. Junior
James M. Carroll
Milwaukee City Attorney's Office
200 East Wells Street
800 City Hall
Milwaukee, WI 53202
Kendall W. Harrison
Mike B. Wittenwyler
Godfrey & Kahn
1 E. Main St., Ste 500
P.O. Box 2719
Madison, WI 53701-2719

1666

Jeffrey A. Mandell
Rachel E. Snyder
Stafford Rosenbaum LLP
222 W. Washington Avenue
Post Office Box 1784
Madison, WI 53701
Charles G. Curtis, Jr.
Sopen B. Shah
Will M. Conley
Perkins Coie LLP
One East Main St., Ste. 201
Madison, WI 53703
Matthew W. O’Neill
Fox, O’Neill & Shannon, S.C.
622 North Water Street Suite 500
Milwaukee, WI 53202

Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 7 Document 59-8

Page 6
December 4, 2020
No. 2020AP1930-OA

Wisconsin Voters Alliance v. Wisconsin Elections Commission

Joshua Matz
Harmann Singh
350 Fifth Avenue, Suite 7110
New York, NY 10118
Justin A. Nelson
Stephen Shackelford Jr.
Davida Brook
Susman Godfrey LLP
1000 Louisiana Street
Suite 5100
Houston, TX 77002
Paul Smith
Campaign Legal Center
1101 14th Street NW, Suite 400
Washington, DC 20005

1667

David S. Lesser
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
Marc E. Elias
John Devaney
Zachary J. Newkirk
Perkins Coie LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 7 Document 59-8

EXHIBIT 9

1668 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 14 Document 59-9

1669 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 14 Document 59-9

1670 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 14 Document 59-9

1671 Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 14 Document 59-9

1672 Case 2:20-cv-01771-PP Filed 12/07/20 Page 5 of 14 Document 59-9

1673 Case 2:20-cv-01771-PP Filed 12/07/20 Page 6 of 14 Document 59-9

1674 Case 2:20-cv-01771-PP Filed 12/07/20 Page 7 of 14 Document 59-9

1675 Case 2:20-cv-01771-PP Filed 12/07/20 Page 8 of 14 Document 59-9

1676 Case 2:20-cv-01771-PP Filed 12/07/20 Page 9 of 14 Document 59-9

1677 Case 2:20-cv-01771-PP Filed 12/07/20 Page 10 of 14 Document 59-9

1678 Case 2:20-cv-01771-PP Filed 12/07/20 Page 11 of 14 Document 59-9

1679 Case 2:20-cv-01771-PP Filed 12/07/20 Page 12 of 14 Document 59-9

1680 Case 2:20-cv-01771-PP Filed 12/07/20 Page 13 of 14 Document 59-9

1681 Case 2:20-cv-01771-PP Filed 12/07/20 Page 14 of 14 Document 59-9

EXHIBIT 10

1682 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 4 Document 59-10

1683 Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 4 Document 59-10

1684 Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 4 Document 59-10

1685

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 4 Document 59-10

EXHIBIT 11

1686 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 2 Document 59-11

Andino v. Middleton, --- S.Ct. ---- (2020)
2020 WL 5887393, 2020 Daily Journal D.A.R. 10,854

2020 WL 5887393
Supreme Court of the United States.

Marci ANDINO, et al.
v.
Kylon MIDDLETON, et al.
No. 20A55
|
October 5, 2020
Opinion
*1 The application for stay presented to THE CHIEF
JUSTICE and by him referred to the Court is granted in part,
and the district court's September 18, 2020 order granting a
preliminary injunction is stayed pending disposition of the
appeal in the United States Court of Appeals for the Fourth
Circuit and disposition of the petition for a writ of certiorari,
if such writ is timely sought. Should the petition for a writ
of certiorari be denied, this stay shall terminate automatically.
In the event the petition for a writ of certiorari is granted, the
stay shall terminate upon the sending down of the judgment
of this Court.
The order is stayed except to the extent that any ballots cast
before this stay issues and received within two days of this
order may not be rejected for failing to comply with the
witness requirement.

Justice THOMAS, Justice ALITO, and Justice GORSUCH
would grant the application in full.
Justice KAVANAUGH, concurring in grant of application for
stay.
The District Court enjoined South Carolina's witness
requirement for absentee ballots because the court disagreed
with the State's decision to retain that requirement during the
COVID–19 pandemic. For two alternative and independent
reasons, I agree with this Court's order staying in part the
District Court's injunction.
End of Document

First, the Constitution “principally entrusts the safety and the
health of the people to the politically accountable officials of
the States.” South Bay United Pentecostal Church v. Newsom,
590 U. S. ––––, ––––, 140 S.Ct. 1613, 1613-1614, 207
L.Ed.2d 154 (2020) (ROBERTS, C. J., concurring in denial
of application for injunctive relief) (internal quotation marks
and alteration omitted). “When those officials ‘undertake[ ] to
act in areas fraught with medical and scientific uncertainties,’
their latitude ‘must be especially broad.’ ” Ibid. (quoting
Marshall v. United States, 414 U.S. 417, 427, 94 S.Ct. 700,
38 L.Ed.2d 618 (1974); alteration in original). It follows
that a State legislature's decision either to keep or to make
changes to election rules to address COVID–19 ordinarily
“should not be subject to second-guessing by an ‘unelected
federal judiciary,’ which lacks the background, competence,
and expertise to assess public health and is not accountable
to the people.” South Bay, 590 U. S., at ––––, 140 S.Ct., at
1613-1614 (citing Garcia v. San Antonio Metropolitan Transit
Authority, 469 U.S. 528, 545, 105 S.Ct. 1005, 83 L.Ed.2d
1016 (1985)). The District Court's injunction contravened that
principle.
Second, for many years, this Court has repeatedly emphasized
that federal courts ordinarily should not alter state election
rules in the period close to an election. See Purcell v.
Gonzalez, 549 U.S. 1, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006) (per
curiam). By enjoining South Carolina's witness requirement
shortly before the election, the District Court defied that
principle and this Court's precedents. See ––– F. 3d ––––,
–––– – ––––, 2020 WL 5752607 (CA4 2020) (Wilkinson and
Agee, JJ., dissenting from denial of stay).
For those two alternative and independent reasons, I agree
with this Court's order staying in part the District Court's
injunction.
All Citations
--- S.Ct. ----, 2020 WL 5887393 (Mem), 2020 Daily Journal
D.A.R. 10,854

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Filedto12/07/20
2 of 2 Works.
Document 59-11
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1687 Case

1

EXHIBIT 12

1688 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 3 Document 59-12

Massey v. Coon, 865 F.2d 264 (1989)
1989 WL 884

865 F.2d 264
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
(The Court's decision is referenced in a “Table of
Decisions Without Reported Opinions” appearing
in the Federal Reporter. Use FI CTA9 Rule 36-3 for
rules regarding the citation of unpublished opinions.)
United States Court of Appeals, Ninth Circuit.

G. Donald MASSEY; Bruce L. Bax;
Donna L. Sergi, Plaintiffs–Appellants,
v.
A. COON, District Judge; Circuit Court of
Oregon for Josephine County; Supreme
Court of the State of Oregon; L.A. Cushing,
District Judge, Defendants–Appellees.
No. 87–3768.
|
Submitted* Nov. 28, 1988.
|
Decided Jan. 3, 1989.
Synopsis
D.Or.
AFFIRMED.
Appeal from the United States District Court for the District
of Oregon; James A. Redden, District Judge, Presiding.
Before CHOY, TANG and O'SCANNLAIN, Circuit Judges.

MEMORANDUM**
*1 G. Donald Massey, Bruce L. Bax, and Donna L. Sergi
appeal pro se the district court's judgment dismissing their
action for injunctive and declaratory relief.
Massey, Bax, and Sergi filed an action in federal district court
seeking declaratory and injunctive relief against the Oregon
Supreme Court, the Circuit Court of Oregon for Josephine
County, Oregon State District Judge A. Coon, and Oregon
Circuit Judge L.A. Cushing. The complaint alleged that the

defendants violated the plaintiffs' federal due process and
equal protection rights by unlawfully assigning Coon to serve
as circuit court judge pro tem in plaintiffs' quiet title action
in state court. Defendants moved to dismiss the complaint for
failure to state a claim. The magistrate recommended granting
dismissal and the district court adopted the magistrate's
findings and recommendations and dismissed the action. The
appeal now comes before this court.
A. Jurisdiction Over Bax and Sergi
This court does not have jurisdiction to hear an appeal by pro
se appellants who do not personally sign the notice of appeal.
Carter v. Commissioner, 784 F.2d 1006, 1008 (9th Cir.1986).
Bax and Sergi signed neither the original nor the amended
notices of appeal. Therefore, Bax and Sergi's appeals must be
dismissed.
B. Massey's Appeal
Massey contends that Article VII Section 2(a)(3) of the
Oregon Constitution and several Oregon statutes (1) prohibit
the appointment of a state circuit judge pro tem to serve in
the judicial district for which the judge was elected; and (2)
forbid a state circuit judge to name a judge pro tem as that
power is reserved to the Oregon Supreme Court.
Massey also contends that such assignment, because it
is contrary to state law, violates the due process and
equal protection clauses of the Constitution. Assuming,
arguendo, that Massey has correctly interpreted state law, we
nonetheless conclude that the eleventh amendment bars his
suit.
The eleventh amendment prevents federal courts from
hearing suits brought against a state without its consent,
regardless of the type of relief sought. See Pennhurst State
School & Hosp. v. Halderman, 465 U.S. 89, 100 (1984).
Massey has failed to indicate any explicit waiver of Oregon's
immunity to suit in federal court. He contends that the
eleventh amendment is inapplicable because his suit is not
in substance brought against the state. He further argues that
this suit is excepted from the general jurisdictional bar by the
principles of Ex Parte Young, 209 U.S. 123 (1908). We reject
both arguments.
The eleventh amendment bars any suit nominally brought
against individual state officials where the state is the real
party in interest.1 Pennhurst, 465 U.S. at 101. A suit for nonmonetary relief is in substance against the sovereign if “the

Filedto12/07/20
2 of 3 Works.
Document 59-12
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1689 Case

1

Massey v. Coon, 865 F.2d 264 (1989)
1989 WL 884

effect of the judgment would be ‘to restrain the Government
from acting or compel it to act.’ ” Pennhurst, 465 U.S. at 101
n. 11 (citing Dugan v. Rank, 372 U.S. 609, 620 (1963)). Here,
the relief sought would require the state, acting through its
officials, to conform its conduct to state law by appointing a
judge from another district to serve as judge pro tem in this
case.
*2 Massey contends that this suit is not brought against
the state for purposes of the eleventh amendment because
defendants' actions were outside their delegated power.
However, a state official is not entitled to eleventh
amendment immunity only when he acts “without any
authority whatever.” Pennhurst, 465 U.S. at 101 n. 11 (citing
Florida Dept. of State v. Treasure Salvors, Inc., 458 U.S.
670, 697 (1982) (plurality opinion)). “A claim of error in
the exercise of [an official's delegated] power is therefore
not sufficient” to support a claim of ultra vires. Larson v.
Domestic & Foreign Commerce Corp., 337 U.S. 682, 690
(1949). Oregon's Constitution and statutes clearly did provide
a mechanism for appointing judges pro tem, even though the
procedures may not have been followed correctly in this case.
Therefore, this case does not fall within the narrow scope of
the ultra vires doctrine as enunciated by the Supreme Court.
The action against Judges Coon and Cushing was thus in
substance an action against the state.
Massey argues that if the suit is deemed to be one against the
state, it is not barred by the eleventh amendment because it

falls under the exception enunciated in Ex Parte Young. Young
provides that a suit for injunctive relief challenging a state
official's action under the Constitution is not considered a
suit against the state for purposes of the eleventh amendment.
Young, 209 U.S. at 167. Although on its face the complaint
states a claim under the due process and equal protection
clauses of the Constitution, these constitutional claims are
entirely based on the failure of defendants to conform to
state law. “[W]hen a plaintiff alleges that a state official has
violated state law.... the entire basis for the doctrine of Young
... disappears.” Pennhurst, 465 U.S. at 106 (emphasis in
original). Therefore, the Young exception does not apply and
the district court correctly dismissed the suit against Judges
Coon and Cushing.
Finally, the district court properly dismissed Massey's action
without leave to amend. Where amendment of the complaint
would have served no purpose because the acts complained of
could not constitute a cognizable claim for relief, it is not error
to dismiss a complaint without leave to amend. See Jones v.
Community Redevelopment Agency, 733 F.2d 646, 650 (9th
Cir.1984). No restatement of Massey's claim could constitute
a claim for relief cognizable in federal court.2
AFFIRMED.
All Citations
865 F.2d 264 (Table), 1989 WL 884

Footnotes

*
**
1
2

The panel unanimously finds this case suitable for submission on the record and briefs and without oral argument.
Fed.R.App.P. 34(a), Ninth Circuit Rule 34–4.
This disposition is not appropriate for publication and may not be cited to or by the courts of this circuit except as provided
by Ninth Circuit Rule 36–3.
We consider only the claims against Judges Coon and Cushing because Massey does not argue on appeal that the
district court erred in its determination that the state court defendants are immune from suit in federal court.
We also deny Massey's motion to file an amended opening brief. The amended brief adds no new arguments and would
have no effect on the outcome of this case.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Filedto12/07/20
3 of 3 Works.
Document 59-12
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1690 Case

2

EXHIBIT 13

1691 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 6 Document 59-13

Balsam v. Secretary of New Jersey, 607 Fed.Appx. 177 (2015)

607 Fed.Appx. 177
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued
on or after Jan. 1, 2007. See also U.S.Ct. of
Appeals 3rd Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals,
Third Circuit.

Mark BALSAM; Charles Donahue;
Hans Henkes; Rebecca Feldman;
Jaime Martinez; William Conger;
Tia Williams; Independent Voter
Project; Committee for a Unified
Independent Party Inc, doing business
as Independentvoting.Org, Appellants
v.
SECRETARY of the
State OF NEW JERSEY.
No. 14–3882.
|
Argued March 17, 2015.
|
Filed: April 8, 2015.
Synopsis
Background: Voters commenced action against New Jersey's
Secretary of State, alleging that closed primary election
scheme violated § 1983, New Jersey Civil Rights Act, First
and Fourteenth Amendments, and New Jersey Constitution.
The United States District Court for the District of New
Jersey, Stanley R. Chesler, J., 2014 WL 4054051, dismissed
the complaint. Voters appealed.

supplemental jurisdiction statute did not authorize district
court to exercise jurisdiction over claims against nonconsenting States.
Affirmed.
*178 On Appeal from the United States District Court for the
District of New Jersey (D.C. No. 2–14–cv–01388), District
Judge: Hon. Stanley R. Chesler.
Attorneys and Law Firms
Samuel Gregory, Esq. [Argued], Brooklyn, N.Y., Harry
Kresky, Esq., New York, N.Y., S. Chad Peace, Esq. [Argued],
Peace Crowell, San Diego, CA, for Appellants.
Donna Kelly, Esq. [Argued], Eric S. Pasternack, Esq., Office
of Attorney General of New Jersey, Department of Law &
Public Safety, Trenton, NJ, for Appellee.
Dave Frohnmayer, Esq., Harrang Long Gary Rudnick,
Eugene, OR, for Amicus Equal Vote Coalition.
Stephen A. Loney, Jr., Esq., Hogan Lovells US, Philadelphia,
PA, for Amicus Fair Vote.
Richard T. Robol, Esq., Columbus, OH, for
Amici Independent Ohio, Independent Pennsylvanians,
Massachusetts Coalition of Independent Voters, North
Carolina Independents, Utah League of Independent Voters,
and Virginia Independent Voters Association.
Before: SMITH, JORDAN, and VAN ANTWERPEN, Circuit
Judges.

OPINION*
JORDAN, Circuit Judge.

Holdings: The Court of Appeals, Jordan, Circuit Judge, held
that:

The Appellants challenge an order of the United States
District Court for the District of New Jersey dismissing their
complaint. We will affirm.

fundamental right to meaningfully participate at all stages of
election did not guarantee participation in primary elections;

I. Background

Ex Parte Young 's exception to Eleventh Amendment
immunity did not apply; and

A. New Jersey's Closed Primary Election System

Filedto12/07/20
2 of 6 Works.
Document 59-13
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1692 Case

1

Balsam v. Secretary of New Jersey, 607 Fed.Appx. 177 (2015)

New Jersey has created a comprehensive statutory scheme to
govern elections in the state. See N.J. Stat. Ann. §§ 19:1–1
*179 to 19:63–28. A “general” election is held on the first
Tuesday after the first Monday in November, at which time
voters “elect persons to fill public office.” Id. at § 19:1–1.
There are two ways in which a candidate can secure a place on
the ballot for a general election. The first is to be nominated by
a political party in a primary election; the second is to submit
a petition with the requisite number of signatures.
Under the first option, “members of a political party ...
nominate candidates” in the month of June “to be voted for at
general elections.” Id. at §§ 19:1–1 and 19:2–1. New Jersey
law defines a “political party” as any party that garners at least
ten percent of the votes cast in the last general election for the
office of a member of the General Assembly. Id. at § 19:1–1.
To appear on a primary election ballot, a candidate must file a
nominating petition accompanied by the requisite number of
signatures at least sixty-four days before the primary election.
Id. at §§ 19:23–8 and 19:23–14. To be eligible to vote in
a political party's primary election, a voter must be deemed
a member of that party at least fifty-five days before the
election, unless the voter is newly registered or the voter has
not previously voted in a primary election. Id. at § 19:23–45.
The state bears the cost of conducting primary elections. Id.
at § 19:45–1.
Under the second option, candidates unaffiliated with a
political party may “bypass the primary election and proceed
directly to the general election” upon submission of a petition
bearing the necessary number of signatures. Council of Alt.
Political Parties v. Hooks, 179 F.3d 64, 69 (3d Cir.1999); see
also N.J. Stat. Ann. §§ 19:13–3 to 19:13–13.
B. The Appellants' Complaint
Appellants Mark Balsam, Charles Donahue, Hans Henkes,
and Rebecca Feldman are registered as unaffiliated voters,
which means that they were not permitted to vote in New
Jersey's 2013 primary election because they “exercis[ed] their
right not to affiliate with either the Democratic or Republican
parties.” (Opening Br. at 10.) Appellant Jaime Martinez is
a registered Democrat, and Appellants William Conger and
Tia Williams are registered Republicans; each of whom was,
as the Appellants put it, “required to forfeit their right of
non-association in order to exercise their right to vote in
the 2013 Primary Election.” (Opening Br. at 11.) Appellants
Independent Voter Project and Committee for a Unified
Independent Party, Inc., “seek to protect the rights of all voters
to cast a meaningful vote.” (Opening Br. at 11.)

Appellants filed this lawsuit against Kim Guadagno in her
official capacity as New Jersey's Secretary of State, alleging
violations of (1) 42 U.S.C. § 1983; (2) the New Jersey Civil
Rights Act, N.J. Stat. Ann. § 10:6–2(c); (3) the First and
Fourteenth Amendments of the United States Constitution;
and (4) Article II, Section I and Article VIII, Section III of the
New Jersey Constitution. In their complaint, the Appellants
sought three forms of relief: (1) an order declaring the state's
primary election scheme unconstitutional on its face and as
applied; (2) an injunction restraining the state from funding
and administering its current primary election scheme; and (3)
an order directing the state legislature or Secretary of State
to implement a different primary election scheme, in keeping
with the Appellants' views of the United States Constitution.
C. Procedural History
Guadagno filed a motion to dismiss, which the District
Court granted. The Court held that “[a]ny attempt to use
the Constitution to pry open a state-sanctioned *180 closed
primary system is precluded by current Supreme Court
doctrine.” (App. at 6.) In addition, the Court reasoned that
the Appellants' state law claims had to be dismissed as
being barred by the Eleventh Amendment. This timely appeal
followed.
II. Discussion1
As acknowledged by the Appellants at oral argument, their
main argument boils down to the following syllogism: (1)
all voters in New Jersey, regardless of party affiliation,
have a constitutional right to participate at each stage of
the electoral process that materially impacts the outcome
of non-presidential elections in the state; (2) New Jersey's
closed primary elections materially impact the outcome of
non-presidential elections in the state; therefore, (3) all
voters in New Jersey, regardless of party affiliation, have
a constitutional right to participate in New Jersey's closed
primary elections—i.e., the primaries may not be closed.
But it appears that the Appellants are aware that controlling
precedents preclude us from ordering New Jersey to force
political parties to open their primary elections to non-party
members. Therefore, the Appellants argue instead that, in
order to protect their fundamental right to meaningfully
participate at all stages of an election, we force New Jersey to
abolish the closed primary election scheme altogether.
A. Federal Claims

Filedto12/07/20
3 of 6 Works.
Document 59-13
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1693 Case

2

Balsam v. Secretary of New Jersey, 607 Fed.Appx. 177 (2015)

The Appellants rely on First Amendment and Fourteenth
Amendment theories to support their federal claims. They
contend that New Jersey's primary election system violates
the First Amendment because it burdens their associational
rights by “requir[ing] that a voter ‘qualify’ for the right to vote
in the Primary Election by joining a political party.” (Opening
Br. at 36.) They further argue that it violates their Fourteenth
Amendment right to equal protection of the law because
it is inconsistent with the “one person, one vote” standard
articulated in Reynolds v. Sims, 377 U.S. 533, 84 S.Ct.
1362, 12 L.Ed.2d 506 (1964). See id. at 566, 84 S.Ct. 1362
(“[T]he Equal Protection Clause guarantees the opportunity
for equal participation by all voters in the election of state
legislators.”). According to the Appellants, the state's system
creates two classes of voters: “(1) major party members who
enjoy full participation in both the Primary Election and
the general election; and[ ] (2) voters who, by reason of
choosing not to associate with one of the dominant political
parties, are allowed only limited participation in the general
election.” (Opening Br. at 35.) As a result, they say, the latter
class's Fourteenth Amendment rights are violated because,
“[w]ithout equality of the right to vote within all integral
stages of the process, there is essential[ly] no meaningful
right to vote at all.” (Opening Br. at 34–35.) Their position,
however, is untenable.
States possess a “ ‘broad power to prescribe the “Times,
Places and Manner of holding Elections for Senators and
Representatives,” [U.S. Const.] Art. I, § 4, cl. 1, which power
is matched by state control over the election process for
state offices.’ ” Clingman v. Beaver, 544 U.S. 581, 586, 125
S.Ct. 2029, 161 L.Ed.2d 920 (2005) (quoting Tashjian v.
Republican Party of Conn., 479 U.S. 208, 217, 107 S.Ct. 544,
93 L.Ed.2d 514 (1986)). That power is not *181 absolute,
but is “subject to the limitation that [it] may not be exercised in
a way that violates ... specific provisions of the Constitution.”
Williams v. Rhodes, 393 U.S. 23, 29, 89 S.Ct. 5, 21 L.Ed.2d
24 (1968). In particular, New Jersey has a “ ‘responsibility
to observe the limits established by the First Amendment
rights of [its] citizens,’ ” including the freedom of political
association or, in this case, non-association. Eu v. S.F. Cnty.
Democratic Cent. Comm., 489 U.S. 214, 222, 109 S.Ct. 1013,
103 L.Ed.2d 271 (1989) (quoting Tashjian, 479 U.S. at 217,
107 S.Ct. 544). Election regulations that impose a severe
burden on associational rights are subject to strict scrutiny
and may be upheld only if they are “narrowly tailored to
serve a compelling state interest.” Clingman, 544 U.S. at 586,
125 S.Ct. 2029. If a statute imposes only modest burdens,
however, then “the state's important regulatory interests are

generally sufficient to justify reasonable, nondiscriminatory
restrictions” on election procedures. Anderson v. Celebrezze,
460 U.S. 780, 788, 103 S.Ct. 1564, 75 L.Ed.2d 547 (1983).
Accordingly, the Supreme Court has “repeatedly upheld
reasonable, politically neutral regulations that have the effect
of channeling expressive activity at the polls.” Burdick v.
Takushi, 504 U.S. 428, 438, 112 S.Ct. 2059, 119 L.Ed.2d 245
(1992).
While “a citizen has a constitutionally protected right to
participate in elections on an equal basis with other citizens
in the jurisdiction,” Dunn v. Blumstein, 405 U.S. 330, 336,
92 S.Ct. 995, 31 L.Ed.2d 274 (1972), no court has ever held
that that right guarantees participation in primary elections.
The Appellants nevertheless rely on United States v. Classic,
313 U.S. 299, 61 S.Ct. 1031, 85 L.Ed. 1368 (1941), as
authority for their argument that voters have a constitutional
right to participate in primary elections. Their reliance is
misplaced. In Classic, the federal government prosecuted
certain Louisiana state elections commissioners for allegedly
falsifying ballots in a Democratic primary election for the
House of Representatives. The Supreme Court held that the
Constitution gives Congress the power to regulate intraparty
primaries through the criminal code and secures the right to
have one's “vote counted in both the general election and in
the primary election, where the latter is a part of the election
machinery.” Id. at 322, 61 S.Ct. 1031.
In answering the question presented to it, the Court in Classic
presupposed that the right it recognized only applied to voters
who were “qualified” to cast votes in Louisiana's Democratic
primary. Id. at 307, 61 S.Ct. 1031 (stating that one of the
“questions for decision [is] whether the right of qualified
voters to vote in the Louisiana primary and to have their
ballots counted is a right ‘secured ... by the Constitution’
within the meaning of ... the Criminal Code” (second
alteration in original)). But Classic did not expound on
who was “qualified,” and instead left that distinction up to
Louisiana law. See id. at 311, 61 S.Ct. 1031 (“Pursuant to the
authority given by [§] 2 of Article I of the Constitution ...
the states are given, and in fact exercise a wide discretion in
the formulation of a system for the choice by the people of
representatives in Congress.”). Fairly read, Classic speaks to
the constitutional protections that inure to qualified primary
voters, but it is completely silent as to who is qualified. It is,
therefore, of no help to the Appellants' argument.
The Appellants also quote Friedland v. State, 149 N.J.Super.
483, 374 A.2d 60, 63 (N.J.Super. Ct. Law Div.1977), for the

Filedto12/07/20
4 of 6 Works.
Document 59-13
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1694 Case

3

Balsam v. Secretary of New Jersey, 607 Fed.Appx. 177 (2015)

proposition that “courts have held that the right to vote in
the Primary Election is ‘as protected as voting in a general
election.’ ” (Opening Br. at 20.) As noted by the *182
District Court, however, the Appellants' citation to Friedland
is “puzzling.” (App. at 10.) Friedland rejected an attack on
New Jersey's primary election system that is similar to the
one mounted by the Appellants in this case. See Friedland,
374 A.2d at 63–67 (dismissing complaint that contended New
Jersey's primary election law violates the First and Fourteenth
Amendments, “in that it deprives [plaintiffs] of their right to
vote and to affiliate with political parties of their own choice
and denies them equal protection”). When read in context, the
language that the Appellants have lifted from Friedland does
not advance their argument.
The Appellants identify no other precedent even arguably
suggesting that voters have a constitutional right to
unqualified participation in primary elections. There is,
however, relevant precedent that cogently rebuts their
position. In Nader v. Schaffer, the Supreme Court summarily
affirmed a decision upholding Connecticut's closed primary
election system, a system which, in broad strokes, looks
like New Jersey's. 417 F.Supp. 837 (D.Conn.) (three-judge
panel), aff'd, 429 U.S. 989, 97 S.Ct. 516, 50 L.Ed.2d 602
(1976) (mem.). The Nader plaintiffs were registered voters
who refused to enroll in a political party. Id. at 840. As a
result of that choice, they were prohibited from voting in
Connecticut's closed primary elections. Id. They argued that
Connecticut's closed primary election system violated their
constitutional rights in the following ways: (1) it violated
their Fourteenth Amendment right to equal protection by
denying them the right to participate in primary elections
while extending that right to enrolled party members; (2)
it violated their First Amendment associational rights by
compelling them to either enroll in a political party or forgo
the right to vote in a primary; and (3) it violated their right
to vote, as guaranteed by Article I, Section 2, cl. 1 and
the Fourteenth and Seventeenth Amendments, by preventing
them from participating in an “ ‘integral part’ ”—namely the
primary elections—“ ‘of the process by which their United
States Senators and Representatives are chosen.’ ” Id. The
Nader plaintiffs argued that participation in a primary election
was an exercise of their constitutionally protected rights to
vote and associate (or not associate) with others in support of
a candidate. Id. at 842. They further asserted that they wished
to exercise both of those rights but that Connecticut's closed
primary election scheme limited them to one or the other; that
is, in order to vote in a party's primary election, they were
wrongly forced to enroll in a party. Id.

Nader rejected those arguments and struck a balance
of competing First Amendment associational rights
and Fourteenth Amendment rights that undermines the
Appellants' position here. The court in Nader concluded
that, in order to safeguard the constitutional rights of party
members, Connecticut could “legislat[e] to protect the party
from intrusion by those with adverse political principles,”
during the candidate selection process. Id. at 845 (internal
quotation marks omitted). Nader also reasoned that “a
state has a more general, but equally legitimate, interest in
protecting the overall integrity of [primary elections],” which
“includes preserving parties as viable and identifiable interest
groups[, and] insuring that the results of primary elections ...
accurately reflect the voting of party members.” Id. Thus, “in
order to protect party members from intrusion by those with
adverse political principles, and to preserve the integrity of
the electoral process, a state legitimately may condition one's
participation in a party's nominating process on some showing
of loyalty to that party,” including party *183 membership.
Id. at 847 (internal quotation marks omitted).
The reasoning of Nader is directly applicable here. The
Appellants claim that Nader recognized political parties'
associational rights without considering the countervailing
rights of individuals who are not members of a political party
to not have their vote unconstitutionally diluted. (Opening
Br. at 39, 42.) But that is simply incorrect. The court in
Nader did consider the countervailing rights of individuals
who were not members of a political party, and it found that
the associational rights of party members and the regulatory
interests of the state outweighed those rights. See 417 F.Supp.
at 844, 845 (“Because the political party is formed for the
purpose of engaging in political activities, constitutionally
protected associational rights of its members are vitally
essential to the candidate selection process.... The rights of
party members may to some extent offset the importance of
claimed conflicting rights asserted by persons challenging
some aspect of the candidate selection process.”).
We conclude, in keeping with Nader, that the burden,
if any, imposed on the Appellants' First Amendment
and Fourteenth Amendment rights is outweighed and
constitutionally justified by the interests identified by New
Jersey in this case. See Answering Br. at 15 (“[T]he State
has a legitimate interest in protecting the overall integrity of
the ... electoral process as well as the associational rights of
political associations, maintaining ballot integrity, avoiding
voter confusion, and ensuring electoral fairness.”).

Filedto12/07/20
5 of 6 Works.
Document 59-13
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1695 Case

4

Balsam v. Secretary of New Jersey, 607 Fed.Appx. 177 (2015)

B. State Law Claims
Under the Eleventh Amendment, state officials acting in their
official capacity cannot be sued unless Congress specifically
abrogates the state's immunity or the state waives its own
immunity. Will v. Mich. Dep't of State Police, 491 U.S.
58, 66, 70–71, 109 S.Ct. 2304, 105 L.Ed.2d 45 (1989).
The Appellants assert that, because their state law claims
are premised on violations of the federal Constitution and
seek prospective injunctive relief, the principles of Ex Parte
Young, 209 U.S. 123, 28 S.Ct. 441, 52 L.Ed. 714 (1908),
are implicated and the action against Guadagno strips her of
her official or representative character and subjects her to the
consequences of her individual conduct. Thus, the Appellants
argue, this suit is “not really a suit against the state itself” and
Eleventh Amendment immunity does not apply. (Opening Br.
at 44–45.)
We disagree. Although Ex Parte Young held that the Eleventh
Amendment does not bar a party from bringing suit for
prospective injunctive relief on the basis of federal law, the
Supreme Court held in Pennhurst State School & Hospital
v. Halderman, 465 U.S. 89, 104 S.Ct. 900, 79 L.Ed.2d 67
(1984), that state officials are immune from suits in federal
court based on violations of state law, including suits for
prospective injunctive relief under state law, unless the state
waives sovereign immunity. Id. at 106, 104 S.Ct. 900 (“We
conclude that Young ... [is] inapplicable in a suit against

state officials on the basis of state law.”). Moreover, the
supplemental jurisdiction statute, 28 U.S.C. § 1367, does not
authorize district courts to exercise jurisdiction over claims
against non-consenting States. See Raygor v. Regents of the
Univ. of Minnesota, 534 U.S. 533, 541–42, 122 S.Ct. 999,
152 L.Ed.2d 27 (2002) (“[W]e hold that § 1367(a)'s grant of
jurisdiction does not extend to claims against nonconsenting
state defendants.”).
The Appellants' attempt to tie their state law claims into their
federal claims is unpersuasive. Even assuming that they are
correct that violation of the federal *184 Constitution could
be used to establish a violation of the state law on which they
rely, it is state law that provides the cause of action, if any, and
the attendant relief they seek. Therefore, Ex Parte Young 's
exception to Eleventh Amendment immunity does not apply.
In short, because Congress has not abrogated and New Jersey
has not waived its sovereign immunity, the Appellants cannot
invoke federal jurisdiction over their state law challenge to
New Jersey's closed primary election system.
III. Conclusion
For the foregoing reasons, we will affirm the District Court's
dismissal of the Appellants' federal and state law claims.
All Citations
607 Fed.Appx. 177

Footnotes

*
1

This disposition is not an opinion of the full court and, pursuant to I.O.P. 5.7, does not constitute binding precedent.
The District Court had jurisdiction under 28 U.S.C. §§ 1331, 1343, and 1367. We have jurisdiction pursuant to 28 U.S.C.
§ 1291. We exercise plenary review of the District Court's order granting the motion to dismiss for lack of subject matter
jurisdiction and for failure to state a claim. United States ex rel. Schumann v. AstraZeneca Pharms. L.P., 769 F.3d 837,
845 (3d Cir.2014); Rea v. Federated Investors, 627 F.3d 937, 940 (3d Cir.2010).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Filedto12/07/20
6 of 6 Works.
Document 59-13
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1696 Case

5

EXHIBIT 14

1697 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 13 Document 59-14

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

2017 WL 3223915
Only the Westlaw citation is currently available.
United States District Court, M.D.
Alabama, Northern Division.

Treva THOMPSON, et al., Plaintiffs,
v.
State of ALABAMA, et al., Defendants.
CASE NO. 2:16-CV-783-WKW
|
Signed 07/28/2017
Attorneys and Law Firms
Aderson B. Francois, Institute for Public Representation,
Danielle Lang, Joseph Gerald Hebert, Campaign Legal
Center, Jessica Ring Amunson, Jenner & Block LLP, Patrick
D. Llewellyn, Public Citizen Litigation Group, Washington,
DC, Armand Derfner, Derfner & Altman LLC, Charleston,
SC, James Uriah Blacksher, Attorney at Law, Birmingham,
AL, Joseph Mitchell McGuire, McGuire & Associates LLC,
Montgomery, AL, Pamela Karlan, Stanford Law School,
Stanford, CA, for Plaintiffs.
Andrew L. Brasher, Misty Shawn Fairbanks Messick, James
William Davis, State of Alabama Office of the Attorney
General, Montgomery, AL, for Defendants.

MEMORANDUM OPINION AND ORDER
W. Keith Watkins, CHIEF UNITED STATES DISTRICT
JUDGE
I. INTRODUCTION
*1 Alabama citizens lose their right to vote if they are
“convicted of a felony involving moral turpitude.” Ala.
Const., Art. VIII, § 177(b) (1996). Disenfranchisement of
felons, for more than two decades, has hinged on the meaning
of “moral turpitude.” But what does “moral turpitude”
mean? Because the Alabama Constitution did not define
this nebulous standard, “[n]either individuals with felony
convictions nor election officials ha[d] a comprehensive,
authoritative source for determining if a felony conviction
involve[d] moral turpitude and [was] therefore a disqualifying
felony.” Ala. Code § 17-3-30.1 (eff. Aug. 1, 2017). But that

dilemma for felons and election officials appears to have
resolved on May 25, 2017, at least prospectively, with the
enactment of the Felony Voter Disqualification Act, Alabama
Laws Act 2017-378 (“HB 282”), which for the first time
established a specific and inclusive list of felonies “involving
moral turpitude.” HB 282, codified as § 17-3-30.1 of the
Alabama Code, has an effective date of August 1, 2017.
This lawsuit originally was not about HB 282; it could
not have been because its commencement preceded HB
282's enactment by eight months. Rather, Plaintiffs filed this
proposed class action against the State of Alabama and its
officials, seeking in part to invalidate § 177(b) of Article VIII
of the Alabama Constitution of 1901 on federal constitutional
grounds, including vagueness.
HB 282 changed the course of this lawsuit significantly.
Acknowledging that HB 282 “seeks to put an end to” a system
that required “individual county registrars to make subjective
and contradictory determinations of citizens' eligibility to
vote on an ad hoc basis” (Pls.' Mot. Prelim. Inj., at 7),
Plaintiffs filed a motion for preliminary injunction thirtyseven days after HB 282's enactment. Plaintiffs do not
challenge the provisions of HB 282 itself. Instead, they ask
for a preliminary injunction mandating Defendants to take
specified steps to implement HB 282.
The urgency of the motion, according to Plaintiffs, is the
upcoming special election for the United States Senate seat
in Alabama, and more specifically, the voter registration
deadline, which is July 31, 2017. The special primary election
is August 15, 2017; the special runoff election is September
26, 2017; and the special general election is December
12, 2017. Plaintiffs contend that, “[a]bsent immediate relief
from this Court, thousands of eligible voters risk losing
the opportunity to vote in yet another election.” (Pls.' Mot.
Prelim. Inj., at 8.) The preliminary injunction motion “seeks
relief solely for those voters whose voting rights under
Section 177 of the Constitution have been affirmed by HB
282.” (Id.) The motion refers to these potential voters as “HB
282 voters.” (Id.)
In their motion, Plaintiffs ask for a preliminary injunction
mandating Defendants to take the following actions prior
to the voter registration deadline on July 31, 2017: (1) to
provide notice of HB 282's voting eligibility standards on the
electronic Alabama Voter Registration Form on the Alabama
Secretary of State's website; (2) to post notice of HB 282's
voting eligibility standards on the Alabama Secretary of

2:20-cv-01771-PP
12/07/20
Page
2 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1698 Case

1

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

State's website and at county registrars and DMV offices;
(3) to submit a request to the federal Election Assistance
Commission to provide notice of HB 282's voting eligibility
standards in Alabama's state-specific instructions on the
Federal Voter Registration Form; and (4) to reinstate HB 282
voters—voters whose registration applications were denied
or who were struck from the voter registration rolls in the
last two years, but whose eligibility was affirmed by HB
282—to the voter registration rolls and provide them with
individualized notice of their eligibility to vote.1
*2 Defendants oppose the motion, arguing that Plaintiffs
have not met “the high bar for an emergency mandatory
injunction and [that] the equities clearly outweigh granting
one.” (Defs. Resp., at 2 (Doc. # 58).) Defendants further
represent that the Alabama Secretary of State is responsible
for the unanimous passage of the Act and “fully supports the
new law and is implementing it in a deliberate fashion.” (Id.
at 8.) The record contains briefing and evidence in support
of and in opposition to the motion, and the parties presented
additional evidence and arguments at the hearing held on July
25, 2017.
For the reasons that follow, Plaintiffs have not demonstrated
that they are entitled to preliminary injunctive relief, and
Plaintiffs' motion (Doc. # 56) is due to be denied.

II. JURISDICTION AND VENUE
Subject matter jurisdiction is exercised pursuant to 28 U.S.C.
§ 1331. The parties do not contest personal jurisdiction or
venue.

III. BACKGROUND
A. The Relevant Parties and Claims
Plaintiffs seek a preliminary injunction on some, but not all,
counts. Only those parties and claims that are the subject of
the preliminary injunction are set out here.
1. Parties
Plaintiffs filed this lawsuit on September 26, 2016. The ten
individual Plaintiffs are Alabama citizens who, on the basis
of their felony convictions, have been removed from the voter
registration list, have been denied applications to vote, or have
not registered to vote in this state based on the uncertainty of

whether they have been convicted of a disqualifying felony
involving moral turpitude. The organizational Plaintiff,
Greater Birmingham Ministries, whose central goal is “the
pursuit of social justice in the governance of Alabama,”
expends financial and other resources to help individuals with
felony convictions determine whether they are eligible to vote
or to have their voting rights restored. (Compl. ¶ 62 (Doc.
# 1).) Defendants are the State of Alabama, the Secretary
of State of Alabama, the Chair of the Board of Registrars
for Montgomery County, and a Defendant class consisting of
“[a]ll voter registrars in the State of Alabama.” (Compl. ¶ 68.)
The individual Defendants are sued in their official capacities
only.
The Complaint seeks to certify a class of Plaintiffs defined
as: “All unregistered persons otherwise eligible to register to
vote in Alabama who are now, or who may in the future be,
denied the right to vote because they have been convicted of a
felony.” (Compl. ¶ 50.) The Complaint also enumerates nine
subclasses of Plaintiffs.
The motion for preliminary injunction also contains its
own class, namely, “those voters whose voting rights under
Section 177 of the [Alabama] Constitution have been affirmed
by HB 282.” (Pls.' Mot. Prelim. Inj., at 8 (Doc. # 56).)
2. Claims
Section 177(b)'s phrase “moral turpitude” is at the forefront
of twelve of the Complaint's fifteen counts challenging the
constitutionality of § 177(b) of the Alabama Constitution.
Only Counts 6–10 are relevant to the motion for preliminary
injunction. These counts seek injunctive and declaratory
relief.
Counts 6 and 7 allege that § 177(b)'s failure to define
which Alabama felonies involve moral turpitude “imposes
an unconstitutional burden on the right to vote of eligible
Alabama voters with felony convictions in violation of the
Equal Protection Clause” (Count 6) and the First Amendment
(Count 7), and that, therefore, § 177(b) is subject to strict
scrutiny. (Compl. ¶¶ 204, 207.)
Count 8 is a Fourteenth Amendment procedural due process
claim, alleging that § 177(b)'s felon-disenfranchisement
provision “provides Alabama citizens with little to no predeprivation process before revoking their right to vote, a
fundamental right protected by both the Alabama and United
States Constitutions.” (Compl. ¶ 210.) Count 9 alleges that
the “prohibition on voting for those convicted of felonies

2:20-cv-01771-PP
12/07/20
Page
3 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1699 Case

2

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

‘involving moral turpitude’ is void for vagueness under the
First and Fourteenth Amendments.” (Compl. ¶ 225.)
*3 Count 10 is a selective enforcement claim under the
Fourteenth Amendment's Due Process Clause. It alleges that
Defendants arbitrarily distinguish between groups of felons
by administering § 177(b) with an unequal hand from county
to county and that, therefore, § 177(b) cannot survive rationalbasis scrutiny.
The Complaint's prayer for relief seeks certification of
the Plaintiff class, of nine Plaintiff sub-classes, and of
a Defendant class of county registrars. It also asks for
a declaratory judgment that § 177(b) of the Alabama
Constitution, on its face and as applied, violates the First
Amendment and the Equal Protection and Due Process
Clauses of the Fourteenth Amendment.
B. HB 282
Shortly after taking office in 2014, Alabama Secretary of
State John Merrill established an exploratory committee
on “voter disenfranchisement and restoration of voting
rights.” (See Ex. A, Decl. of Edward Packard ¶ 6 (Doc.
# 63-1).) A subcommittee of the “voter disenfranchisement
and restoration of voting rights” committee drafted proposed
legislation to create an exclusive list of felonies that would
qualify as felonies of “moral turpitude” for the purposes
of voting. (Id.) After this bill was introduced in previous
sessions, the Legislature ultimately enacted this proposed
legislation in a modified form by a unanimous vote in the
2017 regular legislature session. (Id.) HB 282 sets out its
purposes, which are:
a. To give full effect to Article VIII of the Constitution of
Alabama of 1901, now appearing as Section 177 of Article
VIII of the Official Recompilation of the Constitution of
Alabama of 1901, as amended.
b. To ensure that no one is wrongly excluded from the
electoral franchise.
c. To provide a comprehensive list of acts that constitute
moral turpitude for the limited purpose of disqualifying a
person from exercising his or her right to vote.
Ala. Code § 17-3-30.1(b)(2) (eff. Aug. 1, 2017).
On May 25, 2017, Governor Kay Ivey signed HB 282 into
law. Defendants estimate that some 60,000 felons could be
affected by HB 282.

The effective date of HB 282 is August 1, 2017. However,
because the August 15 special primary election for the U.S.
Senate seat in Alabama is after HB 282's effective date, the
Alabama Secretary of State has instructed registrars to use
the new law to determine whether new registrants who have
committed felonies are qualified to vote in the August 15
primary election. (See Ex. E, Decl. of George Noblin ¶ 4 (Doc.
# 63-5).) The Chairman of the Montgomery County Board of
Registrars, George Noblin, gave an example that, on July 17,
2017, his staff permitted an individual convicted of a felony
to register to vote based upon application of HB 282. The
Secretary of State's liaison with the Board of Registrars is
“not aware of any registrar who has received an application to
register from a felon and has not applied the new law.” (See
Ex. B, Decl. of Clay Helms ¶ 7 (Doc. # 63-2).)
The Alabama Secretary of State also is implementing
statewide training to registrars. Through a contract with
Auburn University, the Secretary of the State implemented
a three-year training program on a variety of subjects for all
of the state's registrars. The program, which commenced in
June 2017, includes a course on felon disenfranchisement
and the definition of “moral turpitude.” (See Ex. B, Decl. of
Clay Helms ¶ 12 & Ex. 6 (contract and course schedule).)
Moreover, on June 2, 2017, which was eight days after
HB 282's enactment, Secretary Merrill gave a presentation
on HB 282 to the state association of registrars at their
summer conference and advised them to use the list as the
exclusive means of evaluating registrants. (See id.) And the
Secretary's staff distributed a modified registrars' handbook
that incorporated HB 282. (See id. ¶ 9 & Ex. 5.) The Secretary
of State also has provided written guidance on HB 282 to
all registrars via email. (Pls.' Mot. Prelim. Inj., at 9.) Based
on the steps that the Alabama Secretary of State has taken
to train the registrars on HB 282, Plaintiffs, at the hearing,
withdrew their request for a preliminary injunction ordering
that Defendants provide Alabama's 200 registrars mandatory
training regarding the proper implementation of HB 282 for
the upcoming special elections for the U.S. Senate seat in
Alabama.

IV. STANDARD OF REVIEW
*4 A party seeking a preliminary injunction must establish
four elements: “(1) a substantial likelihood of success on the
merits; (2) a substantial threat of irreparable injury; (3) that
its own injury outweighs the injury to the nonmovant; and

2:20-cv-01771-PP
12/07/20
Page
4 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1700 Case

3

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

(4) that the injunction would not disserve the public interest.”
Siegel v. LePore, 234 F.3d 1163, 1179 (11th Cir. 2000). “A
preliminary injunction is an extraordinary and drastic remedy
not to be granted unless the movant clearly establishes the
burden of persuasion as to the four prerequisites.” Am. Civil
Liberties Union of Fla., Inc. v. Miami-Dade Cty. Sch. Bd., 557
F.3d 1177, 1198 (11th Cir. 2009). That burden is even higher
where, as here, the plaintiff seeks a mandatory preliminary
injunction. See Winmark Corp. v. Brenoby Sports, Inc., 32
F. Supp. 3d 1206, 1218 (S.D. Fla. 2014); see also Meghrig
v. KFC W., Inc., 516 U.S. 479, 484 (1996) (A prohibitory
injunction “restrains” a party from acting, while a mandatory
injunction requires a party to “take action.”). “[T]he burden of
persuasion [on a motion for preliminary injunction] becomes
even greater where the relief requested is a mandatory
injunction, as opposed to a prohibitory injunction.”); see also
Harris v. Wilters, 596 F.2d 678, 680 (5th Cir. 1979) (“Only
in rare instances is the issuance of a mandatory preliminary
injunction proper.” (citing Exhibitors Poster Exch., Inc. v.
Nat'l Screen Serv. Corp., 441 F.2d 560 (5th Cir. 1971)).

V. DISCUSSION
Plaintiffs have not met their high burden for obtaining
a mandatory preliminary injunction. They have failed to
demonstrate that any of the preliminary injunction factors
weighs in their favor.
A. Plaintiffs have not shown a likelihood of success on the
merits.
Plaintiffs argue that they are likely to succeed on their
claims challenging Alabama's standardless enforcement of
the “moral turpitude” provision of § 177(b) as set out in
Counts 6–10 of the Complaint. Defendants assert, on the
other hand, that Plaintiffs cannot succeed because HB 282
moots Counts 6–10 and because their motion for preliminary
injunction seeks relief that is outside the Complaint. These
arguments are addressed in turn.
1. Plaintiffs' claims are moot.
When, during the pendency of a lawsuit, the challenged law
undergoes substantial amendment “so as plainly to cure the
alleged defect, ... there is no live controversy for the Court
to decide.” Ne. Fla. Chapter of Associated Gen. Contractors
of Am. v. City of Jacksonville, Fla., 508 U.S. 656, 670
(1993) (O'Connor, J., dissenting). “Such cases functionally
are indistinguishable from those involving outright repeal:

Neither a declaration of the challenged statute's invalidity nor
an injunction against its future enforcement would benefit the
plaintiff, because the statute no longer can be said to affect the
plaintiff.” Id. The Eleventh Circuit has recognized that both
it and the United States Supreme Court “have repeatedly held
that the repeal or amendment of an allegedly unconstitutional
statute moots legal challenges to the legitimacy of the
repealed legislation.” Nat'l Advert. Co. v. City of Miami, 402
F.3d 1329, 1332 (11th Cir. 2005) (collecting cases).
“While [the] general rule is that repeal [or amendment] of a
statute renders a legal challenge moot, an important exception
to that general rule is that mere voluntary termination of an
allegedly illegal activity is not always sufficient to render
a case moot and deprive the federal courts of jurisdiction
to try the case.” Id. at 1333. As a general principle, “[a]
defendant claiming that its voluntary compliance moots a case
bears the formidable burden of showing that it is absolutely
clear the allegedly wrongful behavior could not reasonably
be expected to recur.” Doe v. Wooten, 747 F.3d 1317, 1322
(11th Cir. 2014) (citation omitted). However, the Eleventh
Circuit “gives government actors more leeway than private
parties in the presumption that they are unlikely to resume
illegal activities”; this leeway translates to a “rebuttable
presumption” or a “lesser burden.” Id. (citations omitted).
*5 Before the presumption can attach, a defendant's
termination of the challenged conduct must be “absolutely
clear.” Id. at 1322. Three factors guide that analysis: (1)
“whether the termination of the offending conduct was
unambiguous”; (2) “whether the change in government policy
or conduct appears to be the result of substantial deliberation,
or is simply an attempt to manipulate jurisdiction”; and (3)
“whether the government has ‘consistently applied’ a new
policy or adhered to a new course of conduct.” Id. at 1323. The
government's repeal or amendment of a challenged statute is
“often a clear indicator of unambiguous termination.” Id. at
1322.
When the presumption attaches, “the controversy will be
moot in the absence of some reasonable basis to believe
that the policy will be reinstated if the suit is terminated.”
Id. (citation omitted). Stated differently, only “when a court
is presented with evidence of a ‘substantial likelihood’ that
the challenged statute will be reenacted, the litigation is not
moot and the court should retain jurisdiction.” Nat'l Advert.
Co., 402 F.3d at 1334. “[T]he cases are legion from this
[circuit] and other courts where the repeal of an allegedly

2:20-cv-01771-PP
12/07/20
Page
5 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1701 Case

4

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

unconstitutional statute was sufficient to moot litigation
challenging the statute.” Id. at 1333–34.
Defendants argue for application of the general rule—that
HB 282 is a clarifying amendment that moots Counts 6–
10. Plaintiffs contend that the voluntary-cessation exception
keeps this case alive.
The court begins with an analysis of the three Doe factors
to determine whether HB 282 makes it “absolutely clear”
that Defendants have ceased the challenged conduct. To
begin, there is no serious debate that HB 282 resolves
Plaintiffs' challenge to § 177(b)'s vagueness. (See, e.g., Pls.
Counsel's Letter to Andrew Brasher (Doc. # 56-1), in which
counsel acknowledges that “HB 282 is most relevant to
Counts 6–10,” which challenge “the prior standardless system
for determining who could vote,” and that “HB 282 is an
important step to remedying the harms we alleged in those
counts of the complaint”).) At the heart of Counts 6, 7,
8, 9, and 10's constitutional challenge is that § 177(b)'s
phrase “moral turpitude” is so vague that it fails to provide
reasonable guidelines for determining whether a felony
conviction “involves moral turpitude.” (See, e.g., Compl. ¶
198 (“The failure [of the State of Alabama] to define ...
crimes of moral turpitude imposes an unconstitutional burden
on those qualified to vote under Alabama law but who
have been convicted of felonies.” (Count 6)); Compl. ¶ 207
(incorporating ¶ 198 into Count 7); Compl. ¶ 211 (“[T]he
risk of erroneous deprivation [of procedural due process]
is high” because county registrars, with no legal training,
must interpret § 177(b) in order to determine a citizen's
eligibility to vote (Count 8); Compl. ¶¶ 222, 224, 225 §
177(b)'s “prohibition on voting for those convicted of felonies
involving moral turpitude—with possible exception of those
crimes listed in Alabama Code Section 15-22-36.1(g)”—
is standardless, does not provide fair notice of the conduct
prohibited, and is void for vagueness (Count 9); Compl. ¶ 227
(“Defendants' enforcement of Section 177(b) is not guided
by a principled determination of which felonies ‘involve
moral turpitude’ ” and, thus, has resulted in a system of
arbitrary disenfranchisement in violation of the Fourteenth
Amendment (Count 10)).
Through the enactment of HB 282, the Alabama legislature
has addressed Plaintiffs' quandary. HB 282's list of specific
Alabama felonies, by crime and code section, is a definitive
list of felonies involving moral turpitude under § 177(b)'s
felony disenfranchisement provision. Plaintiffs now can be
certain whether their convictions are disqualifying. They can

review HB 282 and know whether their felony conviction
involves moral turpitude. In fact, as a result of HB 282's
listing of disqualifying felonies, Antwoine Giles and Laura
Corley now know with certainty that they are eligible to vote
because their felonies are not on the HB 282 list.2 Counts
6–10's challenges that § 177(b)'s phrase “moral turpitude” is
vague and lacks reasonably clear guidelines hardly can be said
to still exist in view of HB 282. Plaintiffs have not argued that
HB 282 fails to provide them with clarity as to whether their
felony convictions involve “moral turpitude.”
*6 Additionally, although Plaintiffs are not content with
the progress of HB 282's implementation, the preponderance
of the evidence shows that registrars are abiding by and
applying HB 282 when registering felons to vote. More
specifically, at the state association of registrars conference
in June 2017, the Alabama Secretary of State advised
registrars to use HB 282's list as the exclusive means
of evaluating registrants. Registrars also have received an
amended registrars' handbook that has been updated to
incorporate the legislation. (Ex. B, Decl. of Clay Helms ¶¶
8, 9.) And, in Montgomery County, a felon was permitted
to register to vote under the new law, whose felony would
have been disqualifying under the old law. (Ex. E, Decl. of
George Noblin ¶ 4.) The Secretary of State's liaison with
the Board of Registrars is “not aware of any registrar who
has received an application to register from a felon and has
not applied the new law.” (Ex. B, Decl. of Clay Helms ¶ 7.)
These facts demonstrate that HB 282, through its enactment
and application, unambiguously terminated the offending
conduct. The first factor is satisfied.
As to the second factor, there is no evidence, argument, or
suggestion that HB 282 was an attempt to manipulate this
court's jurisdiction over this lawsuit. There is no evidence
suggesting that the Alabama legislature intends to repeal HB
282 after this lawsuit concludes. To the contrary, the record
reveals that the passage of HB 282 is the culmination of
several years of work initiated by the Alabama Secretary
of State. (See Ex. C, Decl. of Brent Beal ¶ 2 (Doc. #
63-3).) Defendants' evidence establishes that, shortly after
taking office in 2014, Secretary of State Merrill established
an exploratory committee on “voter disenfranchisement and
restoration of voting rights.” (Ex. A, Decl. of Edward Packard
¶ 6.) A subcommittee of the “voter disenfranchisement and
restoration of voting rights” committee drafted proposed
legislation to create an exclusive list of felonies that would
qualify as felonies of “moral turpitude” for the purposes
of voting. (Id.) Ultimately, after this bill was introduced

2:20-cv-01771-PP
12/07/20
Page
6 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1702 Case

5

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

in previous sessions, the Alabama Legislature enacted this
proposed legislation in a modified form by a unanimous vote
in 2017. (Id.) These facts show that substantial deliberation
undergirded HB 282's enactment. The second factor is met.
Finally, with respect to the third factor, Defendants are
applying HB 282 and are in the midst of implementing
programs to educate registrars, voters, and other officials
on the new law. There is no evidence that any eligible HB
282 voter has been denied the right to register to vote. This
evidence, together with the unanimous vote for the law in
both chambers of the legislature, demonstrates Defendants'
commitment to abide by the new law and its “adhere[nce] to
a new course of conduct.” Doe, 747 F.3d at 1323.
In sum, the State of Alabama's enactment of HB 282
is “a clear indicator of unambiguous termination” of the
allegedly unconstitutional conduct. Id. at 1322. Accordingly,
Defendants are entitled to a rebuttable presumption that “they
are unlikely to resume illegal activities.” Id. Plaintiffs have
failed to rebut that presumption; they have presented no
evidence, for example, that the Alabama Legislature intends
that HB 282's repeal will follow on the heels of the conclusion
of this lawsuit. The absence of this sort of evidence is not
surprising, given that the state legislature passed HB 282
unanimously and that the state's extensive training efforts on
HB 282 already are underway.
Based on the foregoing, the enactment of HB 282, which
clarifies for Plaintiffs whether their convictions are felonies
“involving moral turpitude” under § 177(b), moots a legal
challenge to the vagueness of § 177(b)'s moral turpitude
phrase. The claims' mootness is a jurisdictional flaw that
precludes the court from reaching the merits of these claims.
Because Counts 6, 7, 8, 9, and 10 are moot, Plaintiffs cannot
demonstrate a likelihood of success on the merits.3
2. The requested preliminary injunctive relief is unlike the
relief sought in the Complaint.
*7 A preliminary injunction is not appropriate when it is
based on relief that “is not of the same character [as that
requested in the complaint], and deals with a matter lying
wholly outside the issues in the suit.” Kaimowitz v. Orlando,
122 F.3d 41, 43 (11th Cir. 1997) (per curiam), amended on
reh'g on other grounds by 131 F.3d 950 (11th Cir. 1997). See
also Westbank Yellow Pages v. BRI, Inc., No. 96-1128, 1996
WL 255912, at *1 (E.D. La. May 13, 1996) (“A preliminary
injunction is not an appropriate vehicle for trying to obtain

relief that is not even sought in the underlying action.”). The
relief requested here is problematic, both for what it seeks and
for whom it is sought.
First, the relief requested in the motion for preliminary
injunction is of a different nature than that pleaded in the
Complaint. The Complaint seeks a declaratory judgment that
§ 177(b)'s moral-turpitude standard is unconstitutional and a
permanent injunction enjoining Defendants from enforcing
§ 177(b), for example, by preventing Defendants “from
denying any voter registration applications on the basis
of felony convictions.” (Compl., at 56.) The motion for
preliminary injunction changes the focus of the relief to HB
282. (Pls.' Mot. Prelim. Inj., at 28.) As Plaintiffs admit, the
motion for preliminary injunction asserts “new facts relevant
to the passage of HB 282,” (id. at 2), and asks the court to
order the Secretary to provide notice of HB 282 in a specified
manner and to automatically reinstate certain HB 282 voters.
These remedies are not the remedies that the Complaint
requests should Plaintiffs succeed in their underlying suit
challenging the constitutionality of § 177(b).4
Moreover, to be clear, the subject matter of both the
Complaint and the motion for preliminary injunction
concerns the voting rights of felons. But the Complaint
focuses on felons who, under § 177(b), could not vote, either
because the state explicitly had taken away that right or
because of the uncertainty § 177(b) created as to whether a
conviction arose from a felony involving moral turpitude. The
motion for preliminary injunction, on the other hand, turns
attention to felons who now undeniably can vote by virtue of
HB 282. Felons whose voting rights have been “affirmed” in
that they now are eligible to register to vote (the subject of
the motion for preliminary injunction) are not felons whose
voting rights have been denied because of a felony conviction
(the subject matter of the Complaint).
Second, Plaintiffs request preliminary injunctive relief for a
new putative class of felons. In their brief in support of their
motion for preliminary injunction, Plaintiffs ask for “relief
solely for those voters whose rights under Section 177 of
the [Alabama] Constitution have been affirmed by HB 282.”
(Pls.' Mot. Prelim. Inj., at 8.) It appears that Plaintiffs have
formulated a class of felons—those who previously were
denied voting rights or were unsure of their eligibility to vote
under § 177(b) (and therefore did not attempt to register),
but who now are eligible to vote and are certain of that
eligibility because HB 282 has clarified that their felonies are

2:20-cv-01771-PP
12/07/20
Page
7 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1703 Case

6

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

not disqualifying. But this class is not a part of the class or
nine sub-classes alleged in the Complaint.
*8 The Complaint's class and sub-classes share a common
factual denominator. Each includes unregistered voters who
have been denied the right to vote because either their voting
applications were denied, their names were purged from the
voting registration rolls, or they cannot be legally certain
whether their felony convictions are felonies involving moral
turpitude. As Plaintiffs point out, the Complaint could not
have alleged a purported class of HB 282 voters because
HB 282 was non-existent at the initiation of this suit. But
this point ignores that adding classes (and claims) in briefs
circumvents the letter and spirit of the orderly procedures
established by the Federal Rules of Civil Procedure for the
efficient administration of a lawsuit. See Gyenis v. Scottsdale
Ins. Co., No. 8:12-CV-805-T-33AEP, 2013 WL 3013618,
at *1 (M.D. Fla. June 14, 2013) (“The Federal Rules of
Civil Procedure are necessary for the orderly and efficient
running of this Court and to ensure that in the interests
of justice, everyone is on a level playing field. The Rules
cannot be ignored or overlooked.”); see, e.g., Fed. R. Civ.
15(a), (d) (governing pre-trial amendments to pleadings and
supplemental pleadings); cf. Am. Fed'n of State, Cnty. & Mun.
Emps. Council 79 v. Scott, 717 F.3d 851, 863 (11th Cir. 2013)
(“A plaintiff may not amend her complaint through argument
in a brief opposing summary judgment.”).
Plaintiffs have not moved to amend the Complaint or to
supplement the pleadings in order to redefine the claims for
relief or the purported class. These pleading deficiencies,
which expand the litigation highway outside the Complaint's
roadmap, present yet another reason for denying the motion
for preliminary injunction.
3. Plaintiffs have a Pennhurst problem.
The Eleventh Amendment prevents a federal court from
issuing an injunction against state officials solely to require
them to adhere to state law. Pennhurst State Sch. & Hosp.
v. Halderman, 465 U.S. 89, 106–07 (1984) (“[I]t is difficult
to think of a greater intrusion on state sovereignty than
when a federal court instructs state officials on how to
conform their conduct to state law.”). To avoid the Pennhurst
problem, Plaintiffs' new claims challenging Defendants'
implementation of HB 282 may only proceed in federal court
if a provision of federal law creates a right to the enforcement
of HB 282.

Plaintiffs argue that Pennhurst is inapposite because they seek
an injunction against state officials to “remedy the harms
caused by their unconstitutional behavior” under federal law.
(Doc. # 59, at 4 (emphasis in original).) Plaintiffs' attempt to
differentiate Pennhurst from this case is not convincing.
Plaintiffs express no dissatisfaction with HB 282 itself;
they advance no argument that HB 282 violates the federal
constitution. Rather, Plaintiffs complain that, since May 25,
2017, Defendants have refused to implement HB 282 in
a manner that would maximize notice to HB 282 voters
and give more opportunities to HB 282 voters to vote
in the August 15 special election for the U.S. Senate
seat in Alabama.5 (See Pls.' Mot. Prelim. Inj., at 28, in
which Plaintiffs argue that they seek “full implementation of
governing Alabama law”). What Plaintiffs really appear to
be asking is that this court supervise and direct these state
Defendants in how they should carry out their responsibilities
under HB 282, a state law. The true nature of this “remedy”
sounds in state law. Plaintiffs fail to persuade the court, at
this juncture, that Pennhurst is not prohibitive of what they
are asking this court to do. At the very least, Pennhurst
presents another reason why Plaintiffs have not demonstrated
a substantial likelihood of success on the merits.
B. Plaintiffs have not shown a substantial threat of
irreparable injury.
Plaintiffs contend that “[e]ligible HB 282 voters plainly
face irreparable injury if the State does not take the[ ]
[requested] commonsense steps to implement HB 282, correct
recent unlawful voter registration purges and application
denials, and educate voters about HB 282's eligibility
requirements.” (Pls.' Mot. Prelim. Inj., at 26–27.) The
argument is illogical on many levels.
*9 “A showing of irreparable injury is the sine qua non of
injunctive relief.” Siegel, 234 F.3d at 1176 (citations omitted).
“[T]he asserted irreparable injury must be neither remote nor
speculative, but actual and imminent.” Id. (citations omitted).
Here, for the most part, the asserted injuries are not actual.
An actual injury is imperceptible under these facts. An “HB
282 voter,” as Plaintiffs explain it, is an individual whose
felony offense does not appear on the list of offenses in
HB 282 and, thus, who is not disqualified to vote on the
basis of a felony involving moral turpitude. The injuries
alleged in Counts 6–10 focus on the harm to Plaintiffs
—the inability to discern whether their felony convictions

2:20-cv-01771-PP
12/07/20
Page
8 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1704 Case

7

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

render them unable to vote—caused by § 177(b)'s “failure
to define or list disqualifying crimes or crimes of moral
turpitude.” (Compl. ¶ 198.) HB 282 has alleviated that harm.
It is no longer problematic for Plaintiffs to determine whether
they are eligible to vote. All a Plaintiff needs to know is the
offense resulting in his or her conviction. If that felony is on
the HB 282 list, he or she cannot vote; if it is not on that
list, he or she can vote. Plaintiffs do not deny that HB 282's
“comprehensive list of crimes that ‘involve moral turpitude’
” provides the clarity they sought for § 177(b).6 (Pls.' Mot.
Prelim. Inj., at 7.)
Having acknowledged that the alleged unconstitutional
scheme (and thus necessarily the injury) of which Plaintiffs
allege in the Complaint is “in the past” because of HB 282
(Prel. Inj. H'rg, June 25, 2017), Plaintiffs are left to argue that
Defendants are not doing enough to get the word out on HB
282 to all felons, who were previously disenfranchised under
Alabama's old § 177(b) scheme, but who now are eligible to
vote by reason of HB 282.7 They want this court to direct
the Alabama Secretary of State to post notice about HB 282's
voting eligibility standards on its website and to update state
and federal voter registration forms.8 Plaintiffs go so far as
to insist that as to those felons, who in the past two years
were denied voter registration or were struck from the voter
registration rolls, Defendants should automatically reinstate
them on the voter registration rolls and provide them with
individualized notice of their automatic registration and right
to vote. Having reconstructed their injuries in their motion for
preliminary injunction, Plaintiffs contend that, post HB 282,
they have suffered injuries as a result of Defendants' failure to
take these affirmative steps to provide notice and automatic
reinstatement.
*10 But, at bottom, these alleged injuries are misdirected.
It is true that, once the August 15 special primary election
passes, “there can be no do-over” for an unconstitutionally
disenfranchised voter. League of Women Voters of N. Carolina
v. North Carolina, 769 F.3d 224, 247 (4th Cir. 2014). But
the HB 282 voters do not contend that they have been
disenfranchised. To quote Plaintiffs, HB 282 has “affirmed”
these individuals' right to vote. It would be an entirely
different matter if Defendants were refusing to allow felons
to register to vote where their offense of conviction was
not on the HB 282 list. There is no evidence, however,
that Defendants have denied any eligible HB 282 voter's
application to register to vote or have engaged in any type of
prohibitive tactic. Instead, the evidence demonstrates that the
county registrars, at the direction of the Alabama Secretary of

State, are adhering to HB 282 and are permitting individuals
to register whom HB 282 does not disqualify. Plaintiffs, who
are eligible HB 282 voters, cannot claim irreparable harm
when they have been granted the right to vote.9
Moreover, as to the different forms of notice Plaintiffs
request—a posting on the Alabama Secretary of State's
website; updated state and federal registration forms; and
individualized notice—Plaintiffs have presented no evidence
that either named Plaintiff suffered any injury based upon a
lack of notice. There is no evidence that Mr. Giles or Ms.
Corley do not know that they can go to their respective county
registrars office and register to vote. There is no evidence that
imminent injury will occur to Mr. Giles or Ms. Corley if the
requested forms of notice are denied to them.
Moreover, as a matter of general observation on public
notice rather than a finding, HB 282 and Alabama's felon
disenfranchisement laws have received widespread news
coverage at the local, county, state, and national levels
through broadcast news, the internet, and print media.
Exhibits, submitted by both Plaintiffs and Defendants, include
compilations of the coverage on these issues and confirm that
there have been no less than thirty-five sources of publicity
about Alabama's laws on felon disenfranchisement, with most
of those sources also reporting on HB 282. Notwithstanding
Plaintiffs' contention that Defendants have failed to provide
adequate notice of HB 282 to the targeted felon pool of
eligible HB 282 voters, it is relevant for the equitable equation
that the press has assisted in notifying the public about HB
282.10
As to the putative class members of eligible HB 282 voters,
the following represents the nature of Plaintiffs' evidence.
There is a declaration from a Greater Birmingham Ministries
employee, who “think[s] many of these [eligible HB 282]
voters may never discover that they have the right to vote”
unless they receive “individual notification” of HB 282.
(Shearer Decl. ¶ 10 (Doc. # 66-6).) She explains that many of
the eligible HB 282 voters “are poor and do not have regular
access to computers and the internet,” and, thus, “website
notification alone would be insufficient.” (Id. ¶ 11.) There also
are two declarations from individuals who are eligible HB
282 voters, but who say that they would have been “unaware
of the new law and [their] ability to register to vote” if they
had not been contacted by the Campaign Legal Center. (Brio
Richardson Decl. ¶ 8 (Doc. # 66-9)); (Willie Goldsmith Decl.
¶ 4 (Doc. # 66-10).)

2:20-cv-01771-PP
12/07/20
Page
9 of 13 Works.
Document 59-14
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
1705 Case

8

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

*11 Individualized notice, along with automatic
reinstatement on the voter registration rolls, is what the
putative class really seeks because Plaintiffs, in effect,
concede that a posting on the Secretary's website on HB
282 would not effectively reach eligible HB 282 voters.
These affirmative steps, if Defendants were ordered to take
them, would not give HB 282 voters any more voting
rights than they have today.11 They, like their proposed
class representatives, can register to vote in their respective
counties; there is no question as to their eligibility to vote after
HB 282.
Plaintiffs contend, though, that Hobson v. Pow, 434 F. Supp.
362 (N.D. Ala. 1977), requires individualized notice and
reinstatement to the voter registration rolls of the eligible HB
282 voters. In that case, the district court enjoined the State
of Alabama from disenfranchising men convicted of “wifebeating,” which it found to be an impermissible gender-based
classification, and ordered registrars to “either publish the
notice [of the court's order] or send notice to each person
purged by first-class mail.” Id. It also ordered some counties
to take the extra step of “reinstat[ing] all voters purged” for
wife-beating. Id. at 368. Hobson is distinguishable for at least
two reasons.
First, in Hobson, the plaintiffs secured the right to vote
through litigation and a federal court order. Here, the State
changed the law through legislation, which “everyone is
presumed to know” and of which everyone “is bound to take
notice.” See Meacham v. Halley, 103 F.2d 967, 972 (5th Cir.
1939). Second, Hobson found that it was a violation of equal
protection to disqualify a discrete group of male felons (and
not their female counterparts). The relief the court granted
was prospective declaratory and injunctive relief compelling
state officials to comply with federal law. There is no federal
constitutional claim by the HB 282 voters; these voters have
secured their right to vote. The relief they request arises under
state law and seeks enforcement of state law. Again, the
HB 282 voters' claims in this lawsuit succumb to Pennhurst.
Because their alleged injuries have no federal law grounding
in this court, they cannot be said to be actual, irreparable, or
imminent.
Finally, Plaintiffs' delay in seeking preliminary injunctive
relief undercuts their argument of irreparable injury. Under
Eleventh Circuit law, “[a] delay in seeking a preliminary
injunction of even only a few months—though not necessarily
fatal—militates against a finding of irreparable harm.” Wreal,

LLC v. Amazon.com, Inc., 840 F.3d 1244, 1248 (11th Cir.
2016).
Here, two significant events preceded Plaintiffs' preliminary
injunction motion. First, Plaintiffs have known since April
18, 2017, when Governor Kay Ivey signed a proclamation, of
the dates for the special election for the United States Senate
seat in Alabama. Yet, Plaintiffs delayed filing a preliminary
injunction motion until nearly two-and-a-half months later on
June 30, 2017. Second, Plaintiffs have been on notice since
May 25, 2017, when HB 282 was enacted, of the bill's effect
on current felons' eligibility to vote, but they still waited more
than a month to file their preliminary injunction motion. The
court is mindful of the efforts Plaintiffs say they made to
reach an agreement with the State without the need for court
intervention. But with a July 31 voter registration deadline for
the special primary election looming and given the multitude
of steps that the State must take to get ready for the election,
the delay nevertheless cuts against the premise that these HB
282 voters needed urgent action to protect their rights.
*12 For all of these reasons, Plaintiffs have not shown a
substantial threat of irreparable injury if the requested relief
is not granted.
C. Plaintiffs have not shown that the threatened injury
to them outweighs the harm an injunction may cause the
defendant.
Plaintiffs argue that Defendants will not be harmed by their
relief because “[i]t falls squarely within the Secretary of
State's responsibilities to update the voter registration forms,
[the website], and all other voter education materials, both
to reflect current Alabama law and to provide registrars with
‘uniform guidance’ on the administration of the Election
Code.” (Pls.' Mot. Prelim. Inj., at 27.) Plaintiffs contend
that the important “principle of election law ... that, because
of the risk of voter confusion, courts as a general rule
should be reluctant to allow last-minute changes to the status
quo” is inapplicable in this case because their motion for
a preliminary injunction is intended to eliminate confusion.
Hall v. Merrill, 212 F. Supp. 3d 1148, 1157 (M.D. Ala. 2016)
(citing Purcell v. Gonzalez, 549 U.S. 1 (2006) (per curiam)).
Contrary to Plaintiffs' position, the requested preliminary
injunction, if granted, would alter the status quo. Defendants
would have to divert essential resources needed to prepare
for and conduct the election in order to fulfill the many lastminute tasks that Plaintiffs want them to perform. Plaintiffs
are requesting, for example, the court to order Defendants to

2:20-cv-01771-PP
Page
10 of 13Works.
Document 59-14
© 2020
Thomson Reuters. NoFiled
claim12/07/20
to original U.S.
Government
1706 Case

9

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

send individualized notice to a sub-group of the approximate
60,000 felons who were removed from voter rolls or denied
registration over an indeterminate time frame. Defendants
have demonstrated, at the very least, that identifying the
dates of conviction, the specific felonies committed, and
whether new felonies had been committed would be an
arduous, case-by-case task. With an election looming and
only six employees in the Secretary of State's Election
Division, just the task of preparing the mass mailings to
provide individualized notice to potential HB 282 voters in
67 counties and potentially 3,487 precincts would be massive,
and likely impossible. Considering cumulatively Plaintiffs'
requests for preliminary injunction, completion of those tasks
by Defendants so close to an election would harm Defendants.
Moreover, the harm to Defendants from this court's
meddling with the state's election law is not inconsequential,
particularly here, where Plaintiffs ask this court to oversee
Defendants' implementation of state law. The Eighth Circuit's
observations on principles of federalism are fitting:
The value of decentralized government is recognized
more clearly today than it has been for decades. This
recognition, born of experience, enables us (and not
only us) to see that federal judicial decrees that bristle
with interpretive difficulties and invite protracted federal
judicial supervision of functions that the Constitution
assigns to state and local government are to be reserved for
extreme cases of demonstrated noncompliance with milder
measures. They are last resorts, not first.
Ass'n of Cmty. Organizations for Reform Now (ACORN) v.
Edgar, 56 F.3d 791, 798 (7th Cir. 1995).
*13 Overall, Plaintiffs have not shown that the threatened
injury to them outweighs the harm an injunction may cause
Defendants.
D. Plaintiffs have not demonstrated that a preliminary
injunction would serve the public interest.
Finally, the public interest militates against the granting of the
preliminary injunction motion. The HB 282 voters can have
a voice in the election for the U.S. Senate seat in Alabama;
all of them are, by Plaintiffs' definition of the putative class,
eligible to register to vote and to cast a vote in the special
election. The grant of a preliminary injunction will not give
these voters additional voting rights. HB 282 has advanced,
therefore, the public interest in protecting voting rights from
erroneous disenfranchisement, and, thus, there is little for the

public to gain by granting Plaintiffs' preliminary injunctive
relief.
At the same time, “there is a strong public interest in smooth
and effective administration of the voting laws that militates
against changing the rules in the hours immediately preceding
the election.” Summit Cty. Democratic Cent. & Exec. Comm.
v. Blackwell, 388 F.3d 547, 551 (6th Cir. 2004). Plaintiffs
contend that they only are seeking enforcement of the new
HB 282, not a change in the law, so as to avoid voter
confusion. Even so, the diversion of the state's resources to
fulfilling Plaintiffs' requested tasks, when balanced against
the multitude of hurdles Plaintiffs face as to the other elements
for obtaining injunctive relief and the steps Defendants have
taken to implement HB 282, weighs heavily against granting
preliminary injunction relief.

VI. CONCLUSION
HB 282 offered long-needed and sought-after clarification
to the conundrum in the Alabama Constitution's
disenfranchising provision, § 177(b), when it defined a
“felony involving moral turpitude.” HB 282 did not exist
when Plaintiffs filed this lawsuit challenging § 177(b)
on federal constitutional grounds, but after its enactment,
Plaintiffs filed a motion for preliminary injunction asking this
court to tell Alabama's state officials how to implement the
law. Plaintiffs' motion, however, is based on claims that HB
282 has mooted; raises new claims, new requests for relief, a
new putative class of voters who were ineligible to vote prior
to HB 282, but now are eligible; seeks to alter the status quo;
and raises serious concerns about federal intrusion into state
election law. The motion for preliminary injunction is due to
be denied for all these reasons and more. Plaintiffs satisfy
none of the elements for granting a preliminary injunction.
Accordingly, based upon careful consideration of Plaintiffs'
motion for preliminary injunction, Defendants' opposition,
the evidentiary hearing, and the oral arguments, and the
record, it is ORDERED that the motion (Doc. # 56) is
DENIED.
DONE this 28th day of July, 2017.
All Citations
Not Reported in Fed. Supp., 2017 WL 3223915

2:20-cv-01771-PP
Page
11 of 13Works.
Document 59-14
© 2020
Thomson Reuters. NoFiled
claim12/07/20
to original U.S.
Government
1707 Case

10

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

Footnotes

1
2

3

At the July 25, 2017, hearing on the motion for preliminary injunction, Plaintiffs orally narrowed their written requests for
preliminary injunctive relief. These are the modified requests.
Mr. Giles alleges that his name was purged from the Montgomery County voter registration list after his 2006 Alabama
conviction for stalking in the first degree. Because that felony is not on the HB 282 list, he now is eligible to register to
vote. Ms. Corley alleges that she received conflicting information from state agencies as to whether her 2015 Alabama
convictions for possession of controlled substances disqualified her from voting, and, thus, she was uncertain whether
she could register to vote in Jefferson County. Because the felony underlying Ms. Corley's convictions is not on the HB
282 list, she now knows with certainty that she is qualified to vote.
Although the court's decision on mootness obviates the necessity to delve into the merits of Counts 6–10, it is nonetheless
important to clear up a misconception in Plaintiffs' briefing. Plaintiffs contend that, because “Alabama's system of
disenfranchisement unquestionably ... led to the arbitrary deprivation of fundamental rights, Plaintiffs are likely to succeed”
on Count 6–10. (Pls.' Mot. Prelim. Inj., at 19 (emphasis added).)
Felons do not have a fundamental right to vote protected by strict scrutiny (absent allegations that a disenfranchisement
classification discriminates on the basis of race or other suspect criteria). A state's decision to deprive some convicted
felons, but not others, of voting rights is not subject to a strict scrutiny standard. In Richardson v. Ramirez, 418
U.S. 24 (1974), the Supreme Court upheld a California statute disenfranchising felons convicted of “infamous crimes,”
holding that, notwithstanding the guarantee of equal protection in Section 1 of the Fourteenth Amendment, the reducedrepresentation clause in Section 2 permitted the state to disenfranchise felons. See id. at 52–55. The Court rejected
the petitioners' argument that the statute limiting their voting rights was subject to strict scrutiny. It reasoned that states
can disenfranchise felons on the “demonstrably sound proposition that § 1, in dealing with voting rights as it does, could
not have been meant to bar outright a form of disenfranchisement which was expressly exempted from the less drastic
sanction of reduced representation which § 2 imposed for other forms of disenfranchisement.” Id. at 55.
The Third, former Fifth, Sixth, and Ninth Circuits have interpreted Richardson's analysis of the interplay between Sections
1 and 2 of the Fourteenth Amendment as immunizing felon-disenfranchisement provisions from strict scrutiny under
the Equal Protection Clause. In Owens v. Barnes, 711 F.2d 25 (3d Cir. 1983), which addressed a challenge that
Pennsylvania's law disenfranchising convicted felons during their incarceration violated equal protection, the Third Circuit
held that Richardson compelled the conclusion that “the right of convicted felons to vote is not fundamental.” Id. at 27
(citing Richardson, 418 U.S. at 654). It held that “the state cannot only disenfranchise all convicted felons but it can also
distinguish among them provided that such distinction is rationally related to a legitimate state interest.” Id. Pennsylvania
could have rationally concluded that one of the losses attendant to incarceration should be the loss of “participation in
the democratic process” and that incarcerated and un-incarcerated felons did not stand on equal footing for purposes of
voting rights. Id. at 28. The Sixth Circuit aligned with Owens, holding that “[i]t is undisputed that a state may constitutionally
disenfranchise convicted felons,” id. (citing Richardson, 418 U.S. at 24), and that “the right to vote is not fundamental,”
id. (citing Owens, 711 F.2d at 27).
The Ninth Circuit emphasized that, as for their equal protection claim, the plaintiffs could not “complain about their loss of
a fundamental right to vote because felon disenfranchisement is explicitly permitted under the terms of Richardson, 18
U.S. at 55.” Harvey v. Brewer, 605 F.3d 1067, 1079 (9th Cir. 2010). It explained that it would “not apply strict scrutiny as
[it] would if plaintiffs were complaining about the deprivation of a fundamental right.” Id. Finally, in Shepherd v. Trevino,
575 F.2d 1110, 1114–15 (5th Cir. 1978), the former Fifth Circuit applied the rational-basis test, rather than strict scrutiny,
to a state statutory scheme that disenfranchised all convicted felons, but that provided a mechanism for the restoration
of voting rights only to those who were convicted in state court, not federal court.
All that said, the Supreme Court has not immunized all felon disenfranchisement laws from constitutional review. In Hunter
v. Underwood, 421 U.S. 22 (1985), the Court held that the 1901 Alabama Constitution's provision that disenfranchised
individuals convicted of misdemeanors involving moral turpitude was racially discriminatory. The Court explained: “We are
confident that [Section] 2 [of the Fourteenth Amendment] was not designed to permit the purposeful racial discrimination
attending the enactment and operation of [the state constitutional provision] which otherwise violates [Section] 1 of the
Fourteenth Amendment. Nothing in our opinion in Richardson v. Ramirez suggests the contrary.” Id. at 233. This is the
claim Plaintiffs bring in Count 1, which will be addressed in a separate opinion in the context of Defendants' pending
motion to dismiss.
States cannot make arbitrary classifications between felons. See, e.g., Richardson, 418 U.S. at 56 (remanding a claim
that “there was such a total lack of uniformity in county election officials' enforcement of the challenged state laws as

2:20-cv-01771-PP
Page
12 of 13Works.
Document 59-14
© 2020
Thomson Reuters. NoFiled
claim12/07/20
to original U.S.
Government
1708 Case

11

Thompson v. Alabama, Not Reported in Fed. Supp. (2017)
2017 WL 3223915

4
5
6
7
8

9
10

11

to work a separate denial of equal protection”); Owen v. Barnes, 711 F.2d 25, 27 (3d Cir. 1983) (noting in dicta that a
state “could not disenfranchise similarly situated blue-eyed felons but not brown-eyed felons”); Shepherd v. Trevino, 575
F.2d 1110, 1114 (5th Cir. 1978) (“[S]elective disenfranchisement or reenfranchisement of convicted felons ... must bear
a rational relationship to the achieving of a legitimate state interest.” (internal citations omitted)).
Because the relief Plaintiffs seek in their motion for preliminary injunction arises from the passage of HB 282, which
occurred eight months after the commencement of this action, that relief could not have been encompassed in the
Complaint.
There is irony in this argument because HB 282 is not effective until August 1, 2017. However, because HB 282 voters
will be able to vote in the August 15, 2017 special primary election, should they choose to register to vote, Defendants
are applying the law now so that these individuals can meet the July 31 voter registration deadline.
At this phase of litigation, the parties have not argued, and the court does not address, felony convictions outside Alabama
law. As alleged in the Complaint, all of the named Plaintiffs have Alabama felony convictions.
Of the named Plaintiffs, Mr. Giles and Ms. Corley fit within this new class of HB 282 voters Plaintiffs have identified.
There is no dispute that the Alabama Secretary of State's website includes an electronic state voter registration form
and that the Secretary has modified the instructions on the electronic form by including a hyperlink that lists the HB 282
felonies. (See Ex. B, Decl. of Clay Helms ¶ 13.) Plaintiffs want this court to order the Alabama Secretary of State to
attach the list generated by that hyperlink and attach that list to the PDF of the registration form. This additional step,
says Plaintiffs, would give voters access to the HB 282 crimes list on the downloaded voter registration form.
Alabama has in place statutory procedures for disenfranchised felons to request restoration of voting rights. There is
no evidence that the State of Alabama is requiring an eligible HB 282 voter to apply to have his or her rights restored
before he or she can register to vote.
The media coverage is not referenced here for the truth of the matter asserted, but rather to demonstrate that the news
industry is reporting on HB 282 in and outside this state in multiple media formats. See, e.g., United States v. Michtavi,
155 Fed.Appx. 433, 435 (11th Cir. 2005) (observing that “the Government did not offer the newspaper articles to prove
the truth of the matter asserted therein—the occurrence of the drug bust—but rather to show that newspaper articles
reporting a New York drug bust existed, and thereby rehabilitate Cohen's testimony”).
It can be assumed that a prominent posting about HB 282 on the Alabama Secretary of State's website would provide
the possibility of more opportunities, for an individual who previously was denied or purged from the voting list, to learn
about his or her eligibility to register to vote under HB 282. It is just a possibility on this record, though, where one
declarant claims it would be inadequate alone, no Plaintiff contends that such a notice would be adequate, and where
the supposition is that most HB 282 voters do not have internet access. This requested relief is too speculative to warrant
preliminary injunctive relief.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
Page
13 of 13Works.
Document 59-14
© 2020
Thomson Reuters. NoFiled
claim12/07/20
to original U.S.
Government
1709 Case

12

EXHIBIT 15

1710 Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 11 Document 59-15

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
Plaintiff,
v.
WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
DEFENDANT TONY EVERS’S OPPOSITION TO PLAINTIFF’S MOTION FOR A
CONSOLIDATED EVIDENTIARY HEARING AND TRIAL ON THE MERITS
Plaintiff’s motion for a consolidated hearing/trial on the merits (Dkt. 44) should be
denied. A host of reasons require holding off on scheduling such a hearing. The only reason
Plaintiff now claims to have time for an earlier hearing date is that the District Court of Arizona
this past Saturday sua sponte converted Plaintiff’s attorneys’ originally scheduled evidentiary
hearing in their virtually identical Arizona lawsuit to oral argument on a motion to dismiss,
postponing any potential evidentiary hearing to later in the week. Further, just today the Eastern
District of Michigan denied a preliminary injunction in an almost identical lawsuit filed by
Plaintiff’s counsel; that court acted for reasons relevant here and raised in Governor Evers’s
briefs filed today (Dkt. 55, 59), including that:
The relief requested would violate the Eleventh Amendment;
Michigan had already certified its election results, making the lawsuit moot;
The doctrine of laches barred relief;

1721

Case 2:20-cv-01771-PP Filed 12/07/20 Page 1 of 4 Document 60

Abstention was warranted in light of ongoing state-court litigation;
Plaintiffs lacked standing; and
Plaintiffs had no likelihood of success on the merits.
King v. Whitmer, No. 2:20-cv-13134, ECF No. 62 (E.D. Mich. Dec. 7, 2020) (filed as Dkt. 55-5).
The court based its decision on the parties’ paper submissions. And in Georgia, a ruling today
resulted in dismissal of another near-identical lawsuit on similar grounds. Pearson v. Kemp, No.
1:20-cv-04809, oral decision issued from the bench (N.D. Ga. Dec. 7, 2020).
The same result is exceedingly likely in the case before this Court, as the Michigan and
Georgia lawsuits are almost identical to this case. The cases all rely on speculation and wild
conjecture, and all lack any evidence in support of their fantastical conspiracy claims. Governor
Evers has filed a Motion to Dismiss and a brief in support of that Motion. Like the District of
Arizona court, this Court should first decide threshold issues in the Motion to Dismiss before
holding any type of evidentiary hearing. Doing so is an efficient use of the Court’s and parties’
resources because if the Court holds, for example, the Plaintiff lacks standing (which he does) or
his claims are non-justiciable (which they are), then there will be no need for an evidentiary
hearing.
Additionally, there are several anonymous declarants and proffered experts who
Defendants may need to depose prior to any evidentiary hearing. Without knowing the identities
of some of the witnesses, it is impossible to prepare for even a deposition. That necessitates
scheduling any evidentiary hearing no earlier than December 11 so that witnesses can be
identified and deposed. Plaintiff has no basis to demand that this Court forgo even a rushed,
rudimentary discovery process when he unnecessarily delayed by waiting until a month after the
election to bring his claim.

2

1722

Case 2:20-cv-01771-PP Filed 12/07/20 Page 2 of 4 Document 60

In truth, the request that the Court hold an evidentiary hearing before deciding the Motion
to Dismiss represents a last-gasp effort to hijack a federal court for the same type of circusatmosphere proceeding, as the nation witnessed a few days ago in a Michigan legislative hearing.
For all the reasons Governor Evers explains in both his Motion to Dismiss and his brief in
opposition to Plaintiff’s motion for injunctive relief, none of these witnesses has a shred of
credibility, expertise, or personal knowledge of any facts that would actually be relevant to the
recent election in Wisconsin. Just as other federal courts have done, this Court should decline to
let Plaintiff coopt a federal courthouse for such a circus, when Plaintiff’s complaint should be
dismissed on the papers for any of numerous, independently sufficient reasons.
For the above reasons, Governor Evers opposes Plaintiff’s Motion for Consolidated
Evidentiary Hearing and Trial on the Merits, and requests that the Court either deny the motion
or schedule any evidentiary hearing on a date after the Court decides Governor Evers’s Motion
to Dismiss. Counsel for Governor Evers will be prepared to discuss this issue further at the status
conference the Court has set for tomorrow at 11:00 am.

Respectfully submitted this 7th day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rsnyder@staffordlaw.com
Email: rmanthe@staffordlaw.com

3

1723

Case 2:20-cv-01771-PP Filed 12/07/20 Page 3 of 4 Document 60

Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org
Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers

4

1724

Case 2:20-cv-01771-PP Filed 12/07/20 Page 4 of 4 Document 60

AO 458 (Rev. 06/09) Appearance of Counsel

UNITED STATES DISTRICT COURT
for the

Eastern District of Wisconsin
WILLIAM FEEHAN, DERRICK VAN ORDEN
Plaintiff

v.

WISCONSIN ELECTIONS COMMISSION,
S Defendant
Atta hm

)
)
)
)
)

Case No.

APPEARANCE OF COUNSEL
To:

The clerk of court and all parties of record
I am admitted or otherwise authorized to practice in this court, and I appear in this case as counsel for:
.

Date:

Attorney’s signature

Printed name and bar number

Address

E-mail address

Telephone number

FAX number

Print

1725

Save As...

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 1 Document 61

Reset

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that Allison E. Laffey hereby appears in this matter as counsel
for Proposed Amicus Curiae Wisconsin State Conference NAACP, Dorothy Harrell, Wendell J.
Harris, Sr., and Earnestine Moss, and further requests that all further notices and copies of
pleadings, papers, and other materials relevant to this action be directed and served upon her via
the PACER/ECF electronic filing system, with correspondence, written discovery, and other
documents not filed with the Court to be served upon her at the address below.

1726

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 2 Document 62

Dated this 8th day of December 2020.
/s/ Allison E. Laffey
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com
Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Proposed Amicus Curiae Wisconsin
State Conference NAACP, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss

1727

2
Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 2 Document 62

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that John W. Halpin hereby appears in this matter as counsel for
Proposed Amicus Curiae Wisconsin State Conference NAACP, Dorothy Harrell, Wendell J.
Harris, Sr., and Earnestine Moss, and further requests that all further notices and copies of
pleadings, papers, and other materials relevant to this action be directed and served upon him via
the PACER/ECF electronic filing system, with correspondence, written discovery, and other
documents not filed with the Court to be served upon him at the address below.

1728

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 2 Document 63

Dated this 8th day of December 2020.
/s/ John W. Halpin
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com
Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Proposed Amicus Curiae Wisconsin
State Conference NAACP, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss

1729

2
Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 2 Document 63

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that Mark M. Leitner hereby appears in this matter as counsel
for Proposed Amicus Curiae Wisconsin State Conference NAACP, Dorothy Harrell, Wendell J.
Harris, Sr., and Earnestine Moss, and further requests that all further notices and copies of
pleadings, papers, and other materials relevant to this action be directed and served upon him via
the PACER/ECF electronic filing system, with correspondence, written discovery, and other
documents not filed with the Court to be served upon him at the address below.

1730

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 2 Document 64

Dated this 8th day of December 2020.
/s/ Mark M. Leitner
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com
Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Proposed Amicus Curiae Wisconsin
State Conference NAACP, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss

1731

2
Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 2 Document 64

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiffs,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

NOTICE OF APPEARANCE
PLEASE TAKE NOTICE that Joseph S. Goode hereby appears in this matter as counsel
for Proposed Amicus Curiae Wisconsin State Conference NAACP, Dorothy Harrell, Wendell J.
Harris, Sr., and Earnestine Moss, and further requests that all further notices and copies of
pleadings, papers, and other materials relevant to this action be directed and served upon him via
the PACER/ECF electronic filing system, with correspondence, written discovery, and other
documents not filed with the Court to be served upon him at the address below.

1732

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 2 Document 65

Dated this 8th day of December 2020.
/s/ Joseph S. Goode
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com
Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Proposed Amicus Curiae Wisconsin
State Conference NAACP, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss

1733

2
Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 2 Document 65

AO 458 (Rev. 06/09) Appearance of Counsel

UNITED STATES DISTRICT COURT
for the

Eastern District of Wisconsin
WILLIAM FEEHAN, DERRICK VAN ORDEN
Plaintiff

v.

WISCONSIN ELECTIONS COMMISSION,
S Defendant
Atta hm

)
)
)
)
)

Case No.

APPEARANCE OF COUNSEL
To:

The clerk of court and all parties of record
I am admitted or otherwise authorized to practice in this court, and I appear in this case as counsel for:
.

Date:

Attorney’s signature

Printed name and bar number

Address

E-mail address

Telephone number

FAX number

Print

1734

Save As...

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 1 Document 66

Reset

AO 458 (Rev. 06/09) Appearance of Counsel

UNITED STATES DISTRICT COURT
for the

Eastern District of Wisconsin

WILLIAM FEEHAN and DERRICK VAN ORDEN
Plaintiff

v.

WISCONSIN ELECTIONS COMMISSION, et al.
Defendant

)
)
)
)
)

Case No. 2:20-cv-01771-PP

APPEARANCE OF COUNSEL
To:

The clerk of court and all parties of record
I am admitted or otherwise authorized to practice in this court, and I appear in this case as counsel for:
.

Intervenor - Democratic National Committee

Date:

12/08/2020

s/ Seth P. Waxman
Attorney’s signature

Seth P. Waxman

Printed name and bar number

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
Address

Seth.Waxman@wilmerhale.com
E-mail address

(202) 663-6800
Telephone number

(202) 663-6363
FAX number

1736

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 1 Document 68

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
______________________________________________________________________________
ORDER GRANTING MOTION BY PROPOSED AMICUS CURIAE WISCONSIN
STATE CONFERENCE NAACP, DOROTHY HARRELL, WENDELL J. HARRIS,
SR., AND EARNESTINE MOSS FOR LEAVE TO FILE AMICUS CURIAE BRIEF
(DKT. NO. 56)
______________________________________________________________________________
The plaintiff filed this lawsuit on December 1, 2020. Dkt. Nos. 1. The
named defendants have filed motions to dismiss the case with supporting
briefs—dkt. nos. 51 (Governor Tony Evers) and 53 (Wisconsin Elections
Commission and its members). Defendant Evers’ brief has fifteen attachments,
several of which are decisions from other federal district courts and from the
Wisconsin Supreme Court.
On December 7, the Wisconsin State Conference NAACP and three of its
members—Dorothy Harrell, Wendell J. Harris, Sr. and Earnestine Moss—filed a
motion for permission to file an amicus brief on the question of whether the
court ought to dismiss the lawsuit. Dkt. No. 56. In the opening paragraphs of
the proposed brief, the movants state that “[p]laintiff has already placed a
significant enough burden on the Court, so [they] will endeavor not to repeat
the substantive arguments that [they] expect the parties will make.” Id. at 8-9.
1

1737

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 6 Document 69

They state that instead, they “seek to highlight some of the stronger reasons
why this Court should summarily dismiss this action.” Id. at 9. They state that
they will rely on decisions from federal courts in other districts and the
Wisconsin Supreme Court. Id. Finally, the movants state:
Wisconsin NAACP is not simply an organization whose mission
includes ensuring that voters’ votes are counted, important as that
mission is. It is dedicated specifically to advancing the interests of
Black voters in our democracy. To that end, the national NAACP has
partnered with one of the country’s leading civil rights organizations,
the Lawyers’ Committee for Civil Rights Under Law, to work with
experienced local counsel in several states, including Wisconsin, to
ensure that the votes of Black voters are not invalidated in this
election. It is no accident that Plaintiff’s focus in this case is on the
voters of Milwaukee County, home to Wisconsin’s largest city and
Black population. This follows a pattern wherein the Trump
Campaign and its allies have singled out alleged “corruption” in
other cities with large Black populations.
Wisconsin NAACP respectfully asks this Court to scrutinize
Plaintiff’s claims in that light, and to recognize them not only as an
existential threat to our democracy—which they are—but also as a
particular threat to the votes of members of minority populations
whose access to the ballot box has been historically obstructed.
Plaintiff’s complaint does not deserve a day in court.
Id. at 9-10.
Recently Seventh Circuit judge Michael Scudder issued a thoughtful
consideration of the purpose of an amicus, or “friend of the court,” brief. In
considering whether to accept three proposed amicus briefs, Judge Scudder
explained:
The guidance for prospective amici is sparing. The Federal Rules of
Appellate Procedure say only that a prospective friend of the court
must explain “why an amicus brief is desirable and why the matters
asserted are relevant to the disposition of the case.” FED. R. APP. P.
29(a)(3)(B). [The Seventh Circuit’s] Practitioner’s Handbook for
2

1738

Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 6 Document 69

Appeals adds that, in deciding whether to accept an amicus brief,
the court looks at whether the submission “will assist the judges by
presenting ides, arguments, theories, insights, factors, or data that
are not found in the briefs of the parties.” See Practitioner’s
Handbook for Appeals to the United States Court of Appeals for the
Seventh Circuit, XXII.B “Amicus Briefs” (2020 ed.) (citing Voices for
Choices v. Illinois Bell Telephone Co., 339 F.3d 542, 544-45 (7th Cir.
2003) (Posner, J., in chambers)).
At times individual judges have rightly observed that too many
amicus briefs do not even pretend to offer value and instead merely
repeat (literally or through conspicuous paraphrasing) a party’s
position. See, e.g., Voices for Choices, 339 F.3d at 545 (“[I]t is very
rare for an amicus curiae brief to do more than repeat in somewhat
different language the arguments in the brief of the party whom the
amicus is supporting.”); Ryan v. CFTC, 125 F.3d 1062, 1063 (7th
Cir. 1997) (Posner, C.J., in chambers) (“[T]he vast majority of
[amicus curiae briefs] have not assisted the judges . . . .”). Nobody
benefits from a copycat amicus brief and indeed our practice is to
reject them. See Nat’l Org. for Women, Inc. v. Scheidler, 223 F.3d 615,
617 (7th Cir. 2000). Nor should amicus briefs serve only as a show
of hands on what interest groups are rooting for what outcome. See
Sierra Club, Inc. v. E.P.A., 358 F.3d 516, 518 (7th Cir. 2004) (“Courts
value submissions not to see how the interest groups line up, but to
learn about facts and legal perspectives that the litigants have not
adequately developed.”).
Rather, a true friend of the court will seek to add value to [the
court’s] evaluation of the issues presented on appeal. To be sure, the
fiction that an amicus acts as a neutral information broker, and not
an advocate, is long gone. See Samuel Krislov, The Amicus Curiae
Brief: From Friendship to Advocacy, 72 YALE L.J. 694, 703-704
(1963). But even a friend of the court interested in a particular
outcome can contribute in clear and distinct ways, by, for example:
•

Offering a different analytical approach to the legal issues before
the court;

•

Highlighting factual, historical, or legal nuance glossed over by
the parties;

•

Explaining the broader regulatory or commercial context in
which a question comes to the court;

3

1739

Case 2:20-cv-01771-PP Filed 12/08/20 Page 3 of 6 Document 69

•

Providing practical perspectives on the consequences of potential
outcomes;

•

Relaying views on legal questions by employing the tools of social
science;

•

Supplying empirical data informing one or another question
implicated by an appeal;

•

Conveying instruction on highly technical, scientific, or
specialized subjects beyond the ken of most generalist federal
judges;

•

Identifying how other jurisdictions—cities, states, or even foreign
countries—have approached one or another aspect of a legal
question or regulatory challenge.

The point, of course, is that an amicus curiae brief should be
additive—it should strive to offer something different, new, and
important. See Scheidler, 223 F.3d at 617.
Prairie Rivers Network v. Dynegy Midwest Generation, LLC, 976 F.3d 761, 76264 (7th Cir. Sept. 24, 2020).
It is a close call whether the brief proposed by the movants adds
anything new or different. The movants concede that they seek only to
highlight what they characterize as the stronger of the arguments they
anticipated the defendants would make. The court has reviewed the movants’
brief—in the main, it relies on cases cited by the defendants and makes
arguments made by the defendants.
What the proposed brief does do that is different from the other briefs the
court has received is ask the court to consider the suit from the perspective of
Black voters. It also provides verified declarations from three individuals—the
African-American president of the Beloit Branch of the Wisconsin NAACP (and

4

1740

Case 2:20-cv-01771-PP Filed 12/08/20 Page 4 of 6 Document 69

resident of Beloit, Wisconsin) who voted by in-person early voting in the
November 3, 2020 general election and who asserts that the relief the plaintiff
requests would invalidate her vote, dkt. no. 56 at 22-23; the current president
of the Wisconsin State Conference NAACP who voted by absentee ballot in the
November 3, 2020 general election due to having been diagnosed with COVID19 and who asserts that some of the relief the plaintiff requests would
disenfranchise members of the Wisconsin NAACP who voted absentee and
would depress future voter turnout, dkt. no. 56 at 25-28; and an AfricanAmerican member of the Dane County branch of the NAACP who voted in
person in the November 3, 2020 election and who alleges that the relief the
plaintiff requests would invalidate her vote, dkt. no. 56 at 30-31.
One might argue that the movant’s proposed brief is a “show of hands”
brief—another interest group expressing its agreement with the arguments
made by the defendants in their briefs supporting their motions to dismiss. But
because it does shed light on perspectives the defendants may not have—
perspectives of members of the NAACP; of Black or African-American voters; of
voters who were forced to vote absentee; of voters who used the in-person, early
voting option—the court will grant the motion and accept the movant’s
proposed brief.
The court GRANTS the Motion by Proposed Amicus Curiae Wisconsin
State Conference NAACP, Dorothy Harrell, Wendell J. Harris, Sr., and

5

1741

Case 2:20-cv-01771-PP Filed 12/08/20 Page 5 of 6 Document 69

Earnestine Moss for Leave to File Amicus Curiae Brief. Dkt. No. 56.
Dated in Milwaukee, Wisconsin this 8th day of December, 2020.
BY THE COURT:
___________________________________
HON. PAMELA PEPPER
Chief United States District Judge

6

1742

Case 2:20-cv-01771-PP Filed 12/08/20 Page 6 of 6 Document 69

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
Court Minutes and Order
DATE:
December 8, 2020
JUDGE:
Pamela Pepper
CASE NO:
2020-cv-1771
CASE NAME: William Feehan, et al. v. Wisconsin Elections Commission, et al.
NATURE OF HEARING:
Status Conference
APPEARANCES:
Howard Kleinhendler – Attorney for plaintiff
Jody Schmelzer – Attorney for the Wisconsin Elections
Commission and members
S. Michael Murphy – Attorney for the Wisconsin Elections
Commission And members
Davida Brook – Attorney for Governor Tony Evers
Jeffrey Mandell – Attorney for Governor Tony Evers
David Lesser – Attorney for Amicus Democratic National
Committee
John Devaney – Attorney for Amicus Democratic National
Committee
COURTROOM DEPUTY:
Kristine Wrobel
TIME:
11:08 a.m. – 12:01 p.m.

AUDIO OF THIS HEARING AT DKT. NO. 70
For reasons it explained in detail on the record, the court denied the
plaintiffs’ motion for a consolidated evidentiary hearing and trial on the merits.
Dkt. No. 44.
After explaining that it need to decide the justiciability questions raised
by the defendants and amici before it could consider the merits of the plaintiff’s
request for injunctive relief, the court asked the plaintiff’s counsel whether the
plaintiff needed time to respond to the defendants’ motions to dismiss (Dkt.
Nos. 51 and 53). Counsel responded that the plaintiff would file both his reply
in support of the motion for injunctive relief and his brief in opposition to the
motions to dismiss by 5:00 p.m. CST today. When the court enquired when the
plaintiff needed a decision from the court (in order to avoid extinguishment of
any appellate rights), counsel responded that he would like the court to rule by
tomorrow (December 9, 2020). After hearing from the defendants and amicus
the DNC regarding when they could file reply briefs, the court ordered that the
deadline for the defendants and amici to file reply briefs in support of the
motions to dismiss was December 9, 2020 at 3 p.m. CST. The court indicated
that it will try to get a decision out as soon as possible.
The court DENIES the plaintiffs’ motion for consolidated evidentiary
hearing and trial on the merits. Dkt. No. 44.
The court ORDERS the plaintiff to file his responses to the motions to
dismiss (Dkt. Nos. 51 and 53) and reply brief in support of his motion for
injunctive relief (Dkt. No. 10) by December 8, 2020 at 5 p.m. CST.
1

1743

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 2 Document 71

The court ORDERS that if the defendants and amici wish to file reply
briefs in support of the motions to dismiss, they must do so by December 9,
2020 at 3 p.m. CST.
Dated in Milwaukee, Wisconsin this 8th day of December, 2020.
BY THE COURT:
_____________________________
HON. PAMELA PEPPER
Chief United States District Judge

2

1744

Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 2 Document 71

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
WILLIAM FEEHAN
Plaintiff,

v.

CASE NO. 20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARLC L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN HUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S CONSOLIDATED RESPONSES TO DEFENDANTS’ MOTIONS
TO DISMISS AND REPLIES TO RESPONSES OF DEFENDANTS AND AMICI IN
OPPOSITION TO MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF AND MEMORANDUM IN SUPPORT THEREOF
______________________________________________________________________________
COMES NOW Plaintiff, Michael Feehan, by and through undersigned counsel, and files this
Consolidated1 Response, and Memorandum of Law In Support Thereof, to Defendants Motions to
Dismiss Plaintiff’s December 3, 2020 Amended Complaint (“Amended Complaint”), ECF No. 9,
and Defendants Responses to Plaintiffs’ December 3, 2020 Emergency Motion for Declaratory,
Emergency and Permanent Injunctive Relief (“TRO Motion”). ECF No. 10.

The Court granted Plaintiff’s request to file separate Replies to Defendants. In light of the multiple
Motions to Dismiss, Responses and submissions of Amici, most of which are duplicative and repetitive,
and given the time constraints, Plaintiff believes it is more efficient to submit a single consolidated response
and reply.
1

1

1745

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 31 Document 72

INTRODUCTION
Plaintiff seeks to preserve election integrity in Wisconsin by requesting that this Court order
Defendants to rescind or reverse their certification of the 2020 General Election, which included
hundreds of thousands of illegal, ineligible, fraudulent and fictitious votes that Defendant
Governor Evers and the members of the Wisconsin Elections Commission (“WEC”) knowingly
facilitated and permitted to be cast, through intentionally weakening, or disregarding altogether,
the Wisconsin Election Code’s many safeguards against absentee ballot voter fraud, for the
purpose of ensuring the election of Joe Biden as President.
Defendants, along with Wisconsin state courts, have refused to initiate an investigation into
other glaring “irregularities” strongly indicative of brazen election fraud, such as the nearly
simultaneous halt in vote counting in Milwaukee and Madison (as well as in five other swing
states) in the early morning of November 4 when President Trump had significant lead, followed
by the addition of over 140,000 votes for Biden when counting resumed a couple of hours later,
giving Biden the narrow lead that he has now. Defendants now seek to run out the clock to coverup the evidence of their complicity in the stolen election of 2020. In doing so, it is Defendants,
not Plaintiff, that would disenfranchise millions of Wisconsin voters who cast lawful ballots and
thereby overturned the results of the 2020 General Election.
Plaintiff has provided ample evidence of constitutional election fraud as set forth by the Seventh
Circuit in Kasper v. Bd. of Election Com’rs of the City of Chicago, 814 F.2d 332, 343 (7th Cir.
1987) (“section 1983 is implicated only when there is willful conduct which undermines the
organic process by which candidates are elected”):
• Third parties, whether foreign actors, local officials and/or Defendant WEC, corrupted
election results.

2

1746

Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 31 Document 72

• Defendants’ knowing refusal to rescind certification and delivery of corrupted results
to the Electoral College will deny Plaintiff equal protection.
• Plaintiff is entitled to injunctive relief to prevent defendants from delivering corrupted
results the deny him due process and equal protection, and the ability to cast his vote
in the Electoral College on December 14, 2020 for President Trump..
This case therefore turns on the question whether Plaintiff can carry his burden of proof that
the results are corrupt. Tellingly, Defendants have not propounded any declarations or affidavits
contesting Plaintiff’s extensive sworn testimony and documentary evidence.
STATEMENT OF FACTS
In Celsis In Vitro, Inc. v. CellzDirect, Inc., 664 F.3d 922 (Fed. Cir. 2012), the Court upheld the
district court’s entry of a preliminary injunction based on defendant’s failure to offer any evidence
controverting the plaintiff’s sworn testimony and documentary evidence.
Based on the record before the district court, this court sees no error in the district court’s
finding that Celsis would suffer irreparable harm absent a preliminary injunction. . . . .
Celsis offered testimony from its expert Mark Peterson on irreparable harm. In contrast, LTC
did not offer expert testimony in rebuttal. This court sees no error in the district court’s reliance
on Celsis’ unrebutted expert testimony. To substantiate its claims, Celsis presented fact and
expert testimony as well as specific financial records.

Id. 930–31.2
The following facts are unrebutted by any countervailing evidence.
WEC uses the same Dominion Voting Systems Corporation (“Dominion”) election software
and hardware designed by Smartmatic Corporation (Sequoia in the United States). Amd. Cplt. ECF

In its opposition to Plaintiff’s request for Evidentiary Hearing, WEC complained that Plaintiff has
“sandbagged,” and will likely make a variant of that same complaint in response to Plaintiff’s position that
the Court may determine Plaintiff’s TRO/PI Motion on the unrebutted record before the Court. Plaintiff’s
evidence submitted in this case is substantially similar to that submitted in parallel actions in other
jurisdictions referenced by Defendants because the same three voting technology companies that control
voting in those jurisdictions (along with 90% of the US market) also control substantial voting operations
in Wisconsin.
Plaintiff’s proof was filed with his Complaint December 1. Further, Counsel for Defendants and
Intervenor/Amicus Democratic National Committee have also appeared in those other actions and have
been well aware of Plaintiff’s proof for weeks.
2

3

1747

Case 2:20-cv-01771-PP Filed 12/08/20 Page 3 of 31 Document 72

# 9 (hereafter, “Amd. Cplt.”), Pars. 6 - 8. Dominion and Smartmatic were founded and employed
to conduct computerized ballot-stuffing and vote manipulation. The Smartmatic software ensured
that ensured Venezuelan dictator Hugo Chavez never lost an election. Exhs. 1 and 8 (member
Chavez’s security detail and a 25-year member of the Supreme Electoral Council, which oversees
all Venezuela elections.)3
Smartmatic software design adopted by Dominion for Wisconsin’s elections provides the
ability to hide vote manipulation votes from any audit. It allows an unauthorized user to add,
modify, or remove log entries, causing the machine to log election events that do not reflect actual
voting tabulation. Amd. Cplt. 9 – 10. Exh. 14.
For those reasons, the Texas Board of Elections rejected Dominion software and denied
certification of the 2020 election results. Amd. Cplt. Pars. 10, n. 1, 12. (Exhs.17, 9, 11)
Texas has today filed with the United States Supreme Court its Motion for Leave to File Bill of
Complaint. Exh. 2 to this Response/Reply The Motion includes allegations oof fraud and vote
manipulation specific to Wisconsin. Id., pars. 106 – 124.
According to Princeton Professor of Computer Science and Election Security Expert Dr.
Andrew Appel, he wrote a similar program that would enable someone to “hack a voting machine
[with] 7 minutes alone with a screwdriver.” Amd. Cplt. Par. 13. (Exh. 10).
The WEC itself issued patently unlawful “guidance” to county and municipal clerks not to reject
“indefinitely confined” absentee voters for whom they had “reliable information” that the voters
were not confined, and to fill in missing absentee ballot certification information themselves on
envelope and at the polls. Amd. Cplt. Pars. 14, 37 – 45). (WEC May 13, 2020 Guidance
Memorandum.)

3

All Exhibit references are to the Amended Complaint.

4

1748

Case 2:20-cv-01771-PP Filed 12/08/20 Page 4 of 31 Document 72

The Dominion software was accessed by agents acting on behalf of China and Iran in order to
monitor and manipulate elections, including the most recent US general election in 2020. Amd.
Cplt. Par. 16 (Exh. 12, former military electronic intelligence analyst).
Many Wisconsin jurisdictions also used the Elections Systems & Software Election
Management System, which is similarly compromised. Exh. 17, Pars. 7 – 11.
The WEC certified the Election results on November 30, 2020, showing a difference of 20,565
votes in favor of former Vice-President Joe Biden over President Trump. Amd. Cplt. Par. 35.4
Additional errors included voters receiving ballots who didn’t request them and returned ballots
that went missing. Dr. Briggs concluded that those errors affected almost 97,000 ballots in the state
of Wisconsin, with tens of thousands of unrequested ballots being wrongfully, returned ballots not
being counted, and others lost or destroyed. Amd.Cplt. Pars. 46 – 51.
Statistical analysis of voting pattern anomalies demonstrated statistically significant
outperformance of Dominion machines on behalf of Joe Biden by 181,440. Amd. Cplt. Pars. 52 –
58 (Exh. 4)
The State of Wisconsin, in many locations, used either Sequoia, a subsidiary of Dominion
Systems, and or Dominion Systems, Democracy Suite 4.14-D first, and then included Dominion
Systems Democracy Suite 5.0-S on or about January 27, 2017, which added a fundamental
modification: “dial-up and wireless results transmission capabilities to the Image Cast Precinct
and results transmission using the Democracy Suite EMS Results Transfer Manager module.” (See
Exh. 5, attached hereto, a copy of the Equipment for WI election systems).

Available at
https://elections.wi.gov/sites/elections.wi.gov/files/Statewide%20Results%20All%20Offices%20%28prePresidential%20recount%29.pdf
4

5

1749

Case 2:20-cv-01771-PP Filed 12/08/20 Page 5 of 31 Document 72

Anomalous voting results occurred in voting jurisdictions throughout Wisconsin using software
by Dominion and its subsidiary Sequoia, which included “dial-up and wireless results transmission
capabilities.” Amd.Cplt, Par. 60 - 62. Exh 5.
WEC continued using Dominion and Sequoia software despite numerous concerns expressed
by federal and state agencies and courts throughout the country regarding multiple “acute security
vulnerabilities.” Amd.Cp.t, Par. 63 - 68. Exh. 7.
Dominion software has been compromised by actors in both China and Iran. Dominions
systems are further vulnerable because hardware is manufactured by foreign companies with interests
contrary to those of the United States. Amd. Cplt. 70-76 (Exh. 12).

Further, a Dominion
“. . . algorithm looks to have been set to give Joe Biden a 52% win even with an initial
50K+ vote block allocation was provided initially as tallying began (as in case of Arizona
too). In the am of November 4, 2020 the algorithm stopped working, therefore another
“block allocation” to remedy the failure of the algorithm. This was done manually as
ALL the SYSTEMS shut down NATIONWIDE to avoid detection.”

Exh. 13, Par. 76 (emphasis original)
Dominion data feeds revealed “raw vote data coming directly that includes decimal places
establishes selection by an algorithm, and not individual voter’s choice. Otherwise, votes would
be solely represented as whole numbers (votes cannot possibly be added up and have decimal
places reported).” Amd. Cplt. Pars. 78 – 79, Exzh. 17. Statistical anomalies and impossibilities
compel the conclusion that at least 119,430 must be disregarded. Id.
Smartmatic’s inventors and key personnel are foreign nationals, and the Venezuelan official
personally witnessed manipulation of petitions to prevent removal of President Chavez from
office. Amd. Cplt. Pars. 80-81. (Exhs. 17 and 8).
In their October 30, 2020 advisory “Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data,” both the FBIC and United States Cybersecurity and
6

1750

Case 2:20-cv-01771-PP Filed 12/08/20 Page 6 of 31 Document 72

Infrastructure Security Agency warned of Iranian influence in the 2020 election. Amd. Cplt. Par.
82, Exh. 18.
Dominion systems allow operators to “accept” or “discard” batches of votes on fed through
tabulation machines, including through arbitrarily designating batches of ballots as “problem”
batches. Amd. Cplt. Pars. 83 - 85.Exhs. 14 and 8.
Problems with Dominion systems have been widely reported and documented by individual
citizens and expert academics. Amd Cplt. Pars. 86 - 89.
In particular, Democratic Senators Warren, Klobuchar, Wyden and Congressman Mark
Pocan wrote to the hedge fund owners of voting systems about their concerns that trouble
plagued companies owning voting systems were compromising on security and
concentrating ownership in only three large companies - Election Systems & Software,
Dominion Voting Systems, & Hart InterCivic – which collectively serve over 90% of all
eligible voters in the U.S.” Amd. Cplt. Par. 88. Exh. 16.
Of particular concern, Dominion’s Security Director Eric Coomer, who invented
critical dominion software, is a vehement, virulent and frequent opponent of President
Trump who, besides intemperate and obscene attacks on the President, has posted videos
how Dominion systems may be compromised and boasted publicly he was “f**ing sure”
the President was “not going to win.” . Amd. Cplt. Par. 88-99
Additional facts relevant to this Consolidated Response and Reply are set forth in the December
3, 2020 Amended Complaint, ECF No. 9, filed in the above-captioned proceeding, and its
accompanying exhibits, and the TRO Motion.

7

1751

Case 2:20-cv-01771-PP Filed 12/08/20 Page 7 of 31 Document 72

DISCUSSION
The Amended Complaint lays out in detail factual allegations and violations of the U.S.
Constitution and the Wisconsin Election Code, supported by more than a dozen sworn affidavits
from fact and expert witnesses. Yet Defendants dismiss the Amended Complaint as a “mishmash
of speculation, conjecture, and conspiracy theories, all without a shred of evidence.” ECF No. 59
at 1. Defendants and Amicus filings have not presented any facts or witness testimony that
responds to, much less rebuts, Plaintiffs’ factual allegations and witnesses. Accordingly, Plaintiff’s
allegation and witness testimony remains unrebutted and unchallenged and must be accepted as
true for the purpose of this response.
In Section I, Plaintiff will first review the legal standard for granting injunctive relief, and
the evidentiary standards applicable to the TRO Motion where, as here, defendants fail to offer
any rebutting evidence. Thereafter, Plaintiff will again demonstrate that it has met the requirements
for injunctive relief, which are: (1) substantial likelihood of success on the merits, and in particular
that Plaintiffs have adequately pled their Constitutional and statutory claims; (2) irreparable injury,
(3) the balance of equities tips in their favor, and (4) the requested relief is in the public interest.
In Section II, Plaintiff will demonstrate that he has met the applicable pleading standard
for constitutional election fraud and other constitutional claims under 42 U.S.C. § 1983, in
particular, under Federal Rules of Civil Procedure Rule 9(b) and Rule 12(b)(6). As an initial
matter, we would note that dismissal of election-related challenges is inappropriate before the
development of the evidentiary record.
Finally, Section III will respond to, and dispose of, specious legal arguments by Defendants
and Amicus for denial of Plaintiffs’ TRO Motion, and/or dismissal of the Amended Complaint, on

8

1752

Case 2:20-cv-01771-PP Filed 12/08/20 Page 8 of 31 Document 72

grounds of: (1) standing, (2) laches, (3) mootness, (4) the Eleventh Amendment, (5) administrative
exhaustion and exclusive state jurisdiction, and (6) abstention
I.

PLAINTIFF IS ENTITLED TO INJUNCTIVE RELIEF
A.

Legal Standard for Injunctive Relief.

“To obtain a preliminary injunction, a plaintiff must show three things: (1) without such
relief, he will suffer irreparable harm before his claim is finally resolved; (2) he has no adequate
remedy at law; and (3) he has some likelihood of success on the merits. Harlan v. Scholz, 866
F.3d 754, 758 (7th Cir. 2017) (citing Girl Scouts of Manitou Council, Inc. v. Girl Scouts of U.S.
of Am., Inc., 549 F.3d 1079, 1086 (7th Cir. 2008).” “If the plaintiff can do that much, the court
must then weigh the harm the plaintiff will suffer without an injunction against the harm the
defendant will suffer with one.” Harlin, 866 F.3d at 758 (citing Ty, Inc. v. Jones Grp., Inc., 237
F.3d 891, 895 (7th Cir. 2001). In addition, the court must ask whether the preliminary injunction
is in the public interest. Jones v. Markiewicz-Qualkinbush, 842 F.3d 1053, 1058 (7th Cir. 2016).
All elements are met here, under either standard, and Defendants’ and Amicus responses
have not shown otherwise. Further, this Court can grant the requested injunctive relief on the
pleadings, without an evidentiary hearing, because Defendants have failed to provide any fact or
expert witness testimony whatsoever to rebut Plaintiff’s fact and expert witnesses. See, e.g., Celsis
In Vitro, Inc. v. CellzDirect, Inc., 663 F.3d 922, 930-31 (Fed. Cir. 2012) (affirming district court
grant of preliminary injunction that relied on plaintiff’s unrebutted expert testimony).
Of course, as an initial matter, “[w]hen the acts sought to be enjoined have been declared
unlawful or clearly are against the public interest, plaintiff need show neither irreparable injury
nor a balance of hardship in his favor.” 11 Wright & Miller, Federal Practice & Proc. ¶ 2948 (3d
ed. 1998)) (internal quotation marks omitted); see also Current-Jacks Fork Canoe Rental Ass’n v.
Clark, 603 F. Supp. 421, 427 (E.D. Mo. 1985) (stating that “[i]n actions to enjoin continued
9

1753

Case 2:20-cv-01771-PP Filed 12/08/20 Page 9 of 31 Document 72

violations of federal statutes, once a movant establishes the likelihood of prevailing on the merits,
irreparable harm to the public is presumed.”). Certifying election results tainted by election fraud
and failing to retract such a certification is clearly unlawful and against the public interest. Hence,
Plaintiffs discuss irreparable hardship and the public interest only in the alternative.
B.

Plaintiff Has Satisfied Requirements for Preliminary Injunction and TRO.
1.

Plaintiff has a substantial likelihood of success.

The Plaintiff does not need to demonstrate a likelihood of absolute success on the merits.
“Instead, [it] must only show that [its] chances to succeed on his claims are ‘better than
negligible.’” Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1046 (7th
Cir. 2017). (quoting Cooper v. Salazar, 196 F.3d 809, 813 (7th Cir. 1999)). “This is a low
threshold,” id., that Plaintiff has easily passed.
Through detailed fact and expert testimony including documentary evidence contained in
the Amended Complaint and its exhibits, Plaintiff has made a compelling showing that
Defendants’ intentional actions jeopardized the rights of Wisconsin citizens to select their leaders
under the process set out by the Wisconsin Legislature through the commission of election frauds
that violated Wisconsin laws, including multiple provisions of the Wisconsin election laws. These
acts also violated the Equal Protection and Due Process Clauses of the United States Constitution.
U.S. Const. Amend XIV. And pursuant to 42 U.S.C. § 1983, plaintiffs must demonstrate by a
preponderance of the evidence that their constitutional rights to equal protection or fundamental
right to vote were violated. See, e.g., Radentz v. Marion Cty., 640 F.3d 754, 756-757 (7th Cir.
2011).
Defendants and Amicus misrepresent Plaintiff’s constitutional claims. Plaintiff alleges
both vote dilution and voter disenfranchisement, both of which are claims under the Equal
Protection and Due Process Clause, due to the actions of Defendants in collusion with public
10

1754 Case 2:20-cv-01771-PP Filed 12/08/20 Page 10 of 31 Document 72

employees and voting systems like Dominion. The Amended Complaint describes in great detail
Defendants’ actions to dilute the votes of Republican voters through counting and even
manufacturing hundreds of thousands of illegal, ineligible, duplicative or outright fraudulent
ballots.
While the U.S. Constitution itself accords no right to vote for presidential electors, “[w]hen
the state legislature vests the right to vote for President in its people, the right to vote as the
legislature has prescribed is fundamental; and one source of its fundamental nature lies in the equal
weight accorded to each vote and the equal dignity owed to each voter.” Bush v. Gore, 531 U.S.
98, 104 (2000) (emphasis added). The evidence shows not only that Defendants failed to
administer the November 3, 2020 election in compliance with the manner prescribed by the
Wisconsin Legislature, but they administered the voter registration, absentee ballot rules, and
subsequent ballot processing and counting in a manner that facilitated fraudulent and illegal voter
registration and ballot tabulation by election workers, Dominion, Democratic Party officials and
activists and other third parties making certain the election of Joe Biden as President of the United
States. This conduct violated Equal Protection and Due Process rights of Plaintiff and other
similarly situated voters, as well rights under the Wisconsin election laws. See Kasper v. Bd. of
Election Com’rs of the City of Chicago, 814 F.2d 332, 343 (7th Cir. 1987) (state officials “casting
(or approving) of fictitious votes can violate the Constitution and other federal laws.”).
But Defendants’ actions also disenfranchised Republican voters in violation of the U.S.
Constitution’s “one person, one vote” requirement by:
•

Republican Ballot Destruction: “1 Person, 0 Votes.” Fact and witness expert
testimony alleges and provides strong evidence that tens or even hundreds of
thousands of Republican votes were destroyed, thus completely disenfranchising
that voter.

11

1755 Case 2:20-cv-01771-PP Filed 12/08/20 Page 11 of 31 Document 72

•

Republican Vote Switching: “1 Person, -1 Votes.” Plaintiff’s fact and expert
witnesses further alleged and provided supporting evidence that in many cases,
Trump/Republican votes were switched or counted as Biden/Democrat votes.
Here, the Republican voter was not only disenfranchised by not having his vote
counted for his chosen candidates, but the constitutional injury is compounded by
adding his or her vote to the candidates he or she opposes.

•

Dominion Algorithmic Manipulation: For Republicans, “1 Person, 0.5 Votes,”
while for Democrats “1 Person, 1.5 Votes. Plaintiff presented evidence in the
Complaint regarding Dominion’s algorithmic manipulation of ballot tabulation,
such that Republican voters in a given geographic region, received less weight per
person, than Democratic voters in the same or other geographic regions. See ECF
No. 6, Ex. 104. This unequal treatment is the 21st century of the evil that the
Supreme Court sought to remedy in the apportionment cases beginning with Baker
v. Carr, 369 U.S. 186 (1962), and Reynolds v. Sims, 377 U.S. 533 (1964). Further,
Dominion has done so in collusion with State actors, including Defendants, so this
form of discrimination is under color of law.

This Court should consider the totality of the circumstances in evaluating Plaintiff’s
constitutional and voting rights claims, see, e.g., Chisom v. Roemer, 111 S.Ct 2354, 2368 (1991),
and thus the cumulative effect of the Defendants’ voter dilution, disenfranchisement, fraud and
manipulation, in addition to the effects of specific practices. Taken together, these various forms
of unlawful and unconstitutional conduct destroyed or shifted tens or hundreds of thousands of
Trump votes, and illegally added tens or hundreds of thousand of Biden votes, changing the result
of the election, and effectively disenfranchising the majority of Wisconsin voters. Defendant (and
Amicus) were fully aware of these constitutional violations, and did nothing to stop it.
While Plaintiff alleges several categories of traditional “voting fraud”, Plaintiff has also
alleged new forms of voting dilution and disenfranchisement made possible by new technology.
The potential for voter fraud inherent in electronic voting was increased as a direct result of
Defendants’ and Amicus’s efforts to transform traditional in-person paper voting – for which there
are significant protections from fraud in place – to near universal absentee voting with electronic
tabulation – while at the same time eliminating through legislation or litigation. And when that
failed by refusing to enforce – traditional protections against voting fraud (voter ID, signature
12

1756 Case 2:20-cv-01771-PP Filed 12/08/20 Page 12 of 31 Document 72

matching, witness and address requirements, etc.). Defendants’ design and administration of the
Wisconsin Election Code facilitated illegal and fraudulent voter registration and voting, and thus
evinced a state “policy” that “honest voting is unnecessary or unimportant.” Kasper, 814 F.2d at
344. Defendants’ filing in this proceeding – where they seek to cover up the illegal conduct of
state officials and other third parties and prevent the evidence from ever seeing the light of day –
provide further proof that Defendants are complicit in the massive election fraud scheme described
in the Amended Complaint.
Thus, while Plaintiff’s claims include novel elements due to changes in technology and
voting practices, that does not nullify the Constitution or Plaintiff’s rights thereunder. Defendants
and Defendant-Intervenors have implemented likely the most wide-ranging and comprehensive
scheme of voting fraud yet devised, integrating new technology with old fashioned urban machine
corruption and skullduggery. The fact that this scheme is novel does not make it legal, or prevent
this Court from fashioning appropriate injunctive relief to protect Plaintiff’s right and prevent
Defendants from enjoying the benefits of their illegal conduct.
2.

The Plaintiff Will Suffer Irreparable Harm.

Plaintiff will suffer an irreparable harm due to the Defendants’ myriad violations of
Plaintiff’s rights under the U.S. Constitution, and Wisconsin Election Code, and Defendant and
Defendant Intervenors have not shown otherwise.
Where, as here, plaintiff has demonstrated a likelihood of success on the merits as to a
constitutional claim, such an injury has been held to constitute irreparable harm.” Democratic Nat’l
Comm. v. Bostelmann, 447 F.Supp.3d 757, 769 (W.D. Wis. 2020) (citing Elrod v. Burns, 427 U.S.
347, 373, 96 S.Ct. 2673, 49 L.Ed.2d 547 (1976) (where plaintiff had proven a probability of
success on the merits, the threatened loss of First Amendment freedoms “unquestionably
constitutes irreparable injury”); see also Preston v. Thompson, 589 F.2d 300, 303 n.4 (7th Cir.
13

1757 Case 2:20-cv-01771-PP Filed 12/08/20 Page 13 of 31 Document 72

1978) (“The existence of a continuing constitutional violation constitutes proof of an irreparable
harm.”). Moreover, courts have specifically held that infringement on the fundamental right to
vote constitutes irreparable injury. See Obama for Am. v. Husted, 697 F.3d 423, 435 (6th Cir. 2012)
(“A restriction on the fundamental right to vote ... constitutes irreparable injury.”); Williams v.
Salerno, 792 F.2d 323, 326 (2d Cir. 1986) (holding that plaintiffs “would certainly suffer
irreparable harm if their right to vote were impinged upon”).”
“Additionally, traditional legal remedies would be inadequate, since infringement on a
citizens’ constitutional right to vote cannot be redressed by money damages.” Bostelmann, 447
F.Supp.3d at 769 (citing Christian Legal Soc’y v. Walker, 453 F.3d 853, 859 (7th Cir. 2006)
(“The loss of First Amendment freedoms is presumed to constitute an irreparable injury for
which money damages are not adequate.”); League of Women Voters of N. Carolina v. North
Carolina, 769 F.3d 224, 247 (4th Cir. 2014) (“[O]nce the election occurs, there can be no do-over
and no redress.”).”
In this Response, Plaintiff has refuted and rebutted Defendants’ arguments in detail, in
particular, regarding standing, equitable defenses, and jurisdictional claims, as well as establishing
their substantial likelihood of success. Having disposed of those arguments, and shown a
substantial likelihood of success, this Court should presume that the requirement to show
irreparable injury has been satisfied.
3.

The Balance of Equities & The Public Interest

Under Seventh Circuit law, a “sliding scale” approach is used for balancing of harms: “[t]he
more likely it is that [the movant] will win its case on the merits, the less the balance of harms
need weigh in its favor.” Girl Scouts of Manitou Council v. Girl Scouts of United States of Am.,
Inc., 549 F.3d 1079, 1100 (7th Cir. 2008). Plaintiff has shown a strong likelihood of success on
the merits above.
14

1758 Case 2:20-cv-01771-PP Filed 12/08/20 Page 14 of 31 Document 72

Granting Plaintiff’s primary request for injunctive relief, enjoining certification of the 2020
General Election results, or requiring Defendants to de-certify the results, would not only not
impose a burden on Defendants, but would instead relieve Defendants of the obligation to take any
further affirmative action. The result would be to place the decision regarding certification and
the selection of Presidential Electors back into the hands of the Wisconsin Legislature, which is
the ultimate decision maker under the Elections and Electors Clause of the U.S. Constitution.
Conversely, permitting Defendants’ certification of an election so tainted by fraud and
Defendants’ own unlawful conduct that it would impose a certain and irreparable injury not only
on Plaintiff, but would also irreparably harm the public interest insofar as it would undermine
“[c]onfidence in the integrity of our electoral processes,” which “is essential to the functioning of
our participatory democracy.” Purcell v. Gonzalez, 127 S.Ct. 5, 7 (2006) (per curiam).
II.

PLAINTIFF SATISFIES APPLICABLE PLEADING STANDARDS
Defendants urge this Court to dismiss the Amended Complaint for failure to state a claim

under Rule 12(b)(6) or to plead with particularity under Rule 9(b). See ECF No. 54 at 2; ECF No.
59 at 21-22; ECF No. 57 at 21-26.
The pleading requirements for stating a constitutional election fraud claim in the Seventh
Circuit under Section 1983 are set forth in Kasper, a case addressing widespread voter fraud in
Chicago on a scale similar to what occurred in the 2020 General Election. 814 F.2d at 342-344.
While “intent is an essential ingredient of a constitutional election fraud case under § 1983,” id. at
343, it is not the same intent as required in a common law fraud claim under Federal Rules of Civil
Procedure 9(b). Instead, “section 1983 is implicated only when there is willful conduct which
undermines the organic process by which candidates are elected.” Id. (internal citations and
quotation omitted).

15

1759 Case 2:20-cv-01771-PP Filed 12/08/20 Page 15 of 31 Document 72

In Kasper, Republican plaintiffs alleged a range of illegal conduct strikingly similar to what
has occurred in Wisconsin and other state in the 2020 General Election, in particular, maintenance
of voter lists with ineligible voters, fictitious or fraudulent votes, and failure to enforce safeguards
against voting fraud. Their complaint did not allege active state participation in vote dilution or
other illegal conduct, but rather that the state defendants were aware that a substantial number of
registrations are bogus and [had] not alleviated the situation.” Id. The Kasper held that “casting
(or approval) of fictitious votes can violate the Constitution and other federal laws,” and that for
the purposes of Section 1983, it is sufficient to allege that this conduct was permitted pursuant to
a state “‘policy” of diluting votes” that “may be established by a demonstration” state officials
who “despite knowing of the practice, [have] done nothing to make it difficult.” Id. at 344. This
“policy” may also lie in the “design and administration” of the voting system that is “incapable of
producing an honest vote,” in which case “[t]he resulting fraud may be attributable” to state
officials “because the whole system is in [their] care and therefore is state action.” Id.
Accordingly, Plaintiff is not required to allege that Defendants directly participated in
illegal conduct, or to meet Rule 9(b) requirements to plead with particularity facts demonstrating
their active participation. Instead, it is sufficient, both for purposes of Rule 9(b) and Rule 12(b)(6)
that Defendants’ administration of the Wisconsin Election Code, in particular their guidance that
nullified express provisions intend to prevent absentee voter fraud, certification of and reliance on
Dominion voting machines, and their certification of results tainted by widespread fraud, in a
manner that facilitated voter fraud and resulted in the constitutional violations set forth in the
Compliant. “In a system of notice pleading, judges should read complaints generously,” id. at 343,
and Plaintiff’s Amended Complaint, detailing several distinct types of voter fraud and
constitutional violations, supported by over a dozen sworn affidavits from fact and expert

16

1760 Case 2:20-cv-01771-PP Filed 12/08/20 Page 16 of 31 Document 72

witnesses providing evidence of voter fraud, easily exceeds the applicable pleading requirements
under the Federal Rules of Civil Procedure.
III.

DEFENDANTS’ JURISDICTIONAL AND OTHER GROUNDS FOR DISMISSAL.
A.

Plaintiff Has Standing.

Plaintiff is a lawfully registered Wisconsin voter, who voted for President Trump in the
2020 General Election, and a nominee of the Republican Party to be a Presidential Elector on
behalf of the State of Wisconsin. See ECF No. 1, “Parties” and Exh. 1, Declaration of William
Feehan.
1.

Plaintiff Elector Has Standing under Electors and Elections Clause.

Defendants arguments on standing rely on the Third Circuit’s decision in Bognet v. Sec’y
of Commonwealth, No. 20-2314, 2020 WL 6686120 (3d Cir. Nov. 13, 2020), see ECF No. 52 at
7; ECF No. 59 at 7-8, as well as a recent district court decision in Michigan that followed Bognet.
ECF No. 59 at 8. (citing King v. Whitmer, No. 2:20-vc-13134 (E.D. Mich. Dec. 7, 2020). The
Bognet court addressed a complaint by Pennsylvania voters and a congressional candidate, but not
by a Presidential Elector.
Plaintiff Feehan has standing for the same reason that the Eighth Circuit held that
Minnesota Electors had standing in Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020). The Carson
court affirmed that Presidential Electors have both Article III and Prudential standing under the
Electors and Elections Clauses, “was rooted heavily in the court’s interpretation of Minnesota
law.” Defendants neglect to mention is that the Carson court relied on provisions of Minnesota
law treating electors as candidates for office are just like the corresponding provision of the
Wisconsin Election Code because in both States an elector is a candidate for office nominated by
a political party, and a vote cast for a party’s candidate for President and Vice-President is cast for

17

1761 Case 2:20-cv-01771-PP Filed 12/08/20 Page 17 of 31 Document 72

that party’s Electors. The Carson court concluded that, “[b]ecause Minnesota law plainly treats
presidential electors as a candidate, we do, too.” Carson, 978 F.3d at 1057.
Like the Minnesota statute addressed by the Carson court, Wisconsin statutes provide, first,
that electors are candidates for office nominated by their political party at their state convention
held “on the first Tuesday in October of each year in which there is a Presidential election.” Wis.
Stat. § 8.18.
More importantly, Wisconsin voters do not vote directly for the office of President and
Vice-President, but instead vote for Electors like Mr. Feehan:
Presidential electors. By general ballot at the general election for choosing the
president and vice president of the United States there shall be elected as many
electors of president and vice president as this state is entitled to elect senators and
representatives in congress. A vote for the president and vice president
nominations of any party is a vote for the electors of the nominees.
Wis. Stat. §8.25.
When presidential electors … are to be voted for, a vote cast for the party
candidate for president and vice-president shall be deemed a vote cast for that
party’s electors … as filed with the secretary of state.
Minn. Stat. § 208.04(1) (emphasis added).
In Wisconsin as in Minnesota, the President and Vice-President are not directly elected by
voters. Instead, voters elect the Presidential Electors, who in turn elect the President and VicePresident A vote for President Trump and Vice-President Pence in Wisconsin was a vote for
Plaintiff and his fellow Republican Presidential Electors. It goes without saying that Presidential
Electors play a unique – and central – role in Presidential elections, a role expressly spelled out in
the Electors Clause of the U.S. Constitution. As such, election fraud or other violations of state
election law impacting federal Presidential elections, have a unique and distinct impact on
Presidential Electors, and illegal conduct aimed at harming candidates for President similarly

18

1762 Case 2:20-cv-01771-PP Filed 12/08/20 Page 18 of 31 Document 72

injures Presidential Electors. As such, Plaintiff Elector has “a cognizable interest in ensuring that
the final vote tally reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete
and particularized injury to candidates such as the Electors.” Carson, 978 F.3d at 1058. See also
McPherson v. Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S.
70, 76 (2000) (per curiam).
2.

Plaintiff Has Standing for Equal Protection and Due Process Claims as
a Registered Voter on His Own Behalf and on Behalf Similarly Situated
Voters for Republican Candidates

Defendants misrepresent Plaintiff’s Equal Protection and Due Process claims, both in terms
of substance and for standing purposes, insofar as they claim that Plaintiffs’ claims are based solely
on a theory of vote dilution, and therefore is a “generalized grievance,” rather than the concrete
and particularized injury required for Article III standing. See ECF No. 52 at 6; ECF No. 4 at 6:
ECF No. 59 at 9.5 Defendants also cite the Eleventh Circuit’s decision in Wood v. Raffensperger,
No. 20-14418 (D.C. Cir. Dec. 5, 2020). See ECF No. 57 at 14. But they fail to recognize that The
Eleventh Circuit’s decision in Wood supports Plaintiff’s standing argument, and refutes theirs. The
court dismissed plaintiff Wood’s claim because he was not a candidate. “[I]f Wood were a political
candidate,” like the Plaintiff here, “he would satisfy this requirement because he could assert a
personal, distinct injury.” ECF No. 55-4 at *4 (citations omitted).
Plaintiff, on behalf of himself and other similarly situated voters allege, first, and with great
particularity, that Defendants have both violated Wisconsin law and applied Wisconsin law, in an
arbitrary and disparate manner, to dilute the votes of (or voters for Republican candidates) with
Amicus also cites Donald J. Trump for President, Inc. v. Boockvar, No. 4:20-cv-02078, 2020
WL 6821992 (M.D. Penn Nov. 21, 2020). See ECF No. 57 at 13. This case addressed a number
of theories for standing -- associational, organizational, and standing of a political party based on
harm to that party’s candidates -- that are not present here because each Plaintiff bring suit in
their personal capacity as registered Arizona voters and 11 of the Plaintiffs as Presidential
Electors.
5

19

1763 Case 2:20-cv-01771-PP Filed 12/08/20 Page 19 of 31 Document 72

illegal, ineligible, duplicate or fictitious votes. The fact and expert witness testimony describes
and quantifies the myriad means by which Defendants and their collaborators illegally inflated the
vote tally for Biden and other Democrats. See ECF No. 9, Section II and III. Thus, the vote
dilution resulting from this systemic and illegal conduct did not affect all Wisconsin voters equally;
it had the intent and effect of inflating the number of votes for Democratic candidates and reducing
the number of votes for Trump and Republican candidates.
Further, Plaintiff has presented evidence that, not only did Defendants dilute the votes of
Plaintiff and similarly-situated voters for Republican candidates, they sought to actively
disenfranchise such voters to reduce their voting power, in clear violation of “one person, one
vote.” See generally Baker v. Carr, 369 U.S. 186 (1962); Reynolds v. Sims, 377 U.S. 533 (1964).
The Constitution protects “the right of all qualified citizens to vote in state and federal elections ...
and [ ] the right to have votes counted without dilution as compared to the votes of others.” Bodine
v. Elkhart Cty. Election Bd., 788 F.2d 1270, 1271 (7th Cir. 1986). Similarly, federal courts in
Wisconsin have held that voters have standing to challenge state laws that collectively reduce the
value of one party’s impose an injury that is statewide. See Whitford v. Nichol, 151 F.Supp.3d
918, 926 (W.D. Wis. 2015).
Defendants engaged in several schemes to devalue Republican votes as detailed in the
Amended Complaint, including Republican ballots being destroyed or discarded, or “1 person, 0
votes,” vote switching “1 person, -1 votes,” (Dominion and election workers switching votes from
Trump/Republican to Biden/Democrat), and Dominion algorithmic manipulation, or for
Republicans, “1 person, 1/2 votes,” and for Democrats, “1 person, 1.5 votes.” See e.g., ECF No.
9, Section II.C (ballot destruction/discarding) Ex. 2 (Dr. Briggs Testimony regarding potential
ballot destruction), Ex. 17 (Ramsland testimony regarding additive algorithm), Section IV

20

1764 Case 2:20-cv-01771-PP Filed 12/08/20 Page 20 of 31 Document 72

(multiple witnesses regarding Dominion vote manipulation). Plaintiff’s injury is that the relative
value of his particular votes was devalued, or eliminated altogether, and as such, it is not a
“generalized grievance,” as Defendants claim.
It is hard to square Defendants’ argument that a candidate Plaintiff—whose interests and
injury are identical to that of President Trump—lacks standing to raise Equal Protection and Due
Process claims of similarly situated Republican voters, with the Supreme Court’s 7-2 decision in
Bush v. Gore, 531 U.S. 98 (200), “then-candidate George W. Bush of Texas had standing to raise
the equal protection rights of Florida voters that a majority of the Supreme Court deemed decisive”
in that case. Hawkins v. Wayne Twp. Bd. of Marion Cty., IN, 183 F. Supp. 2d 1099, 1103 (S.D.
Ind. 2002).
Plaintiff can also establish that the alleged particularized injury in fact is causally connected
to Defendants’ actions. Specifically, “WEC’s administration of Wisconsin’s elections, including
the enforcement of its current election laws, is the cause of plaintiff[‘s] alleged injuries. Moreover,
the WEC has the authority to implement a federal court order relating to election law to redress
these alleged injuries.” Democratic Nat’l Comm. v. Bostelmann, No. 20-CV-249-WMC, 2020 WL
5627186, at *12 (W.D. Wis. Sept. 21, 2020). Defendant Evers can also provide partial redress in
terms of the requested injunctive relief, namely, by refusing to certify or transmit the election
results, and providing access to voting machines, records and other “election materials.” ECF No.
9 ¶142(4).
Plaintiff thus meets the requirements for standing: (1) the injuries of their rights under the
Equal Protection and Due Process clauses that concrete and particularized for themselves, and
similarly situated voters, whose votes have been devalued or disregarded altogether (2) that are
actual or imminent and (3) are causally connected to Defendants conduct because the debasement

21

1765 Case 2:20-cv-01771-PP Filed 12/08/20 Page 21 of 31 Document 72

of their votes is a direct and intended result of the conducts of the Defendants and the public
employee election workers they supervise. See generally Lujan v. Defenders of Wildlife, 504 U.S.
555, 560-561 (1992).
B.

Laches

Defendants assert that Plaintiff’s claims are barred by laches. See ECF No. 52 at 8; ECF
No. 59 at 16-20. To establish laches a defendant must prove both an unreasonable delay by the
plaintiff and prejudice to itself. See ,e.g., Lingenfelter v. Keystone Consolidated Indus., Inc., 691
F.2d 339, 340 (7th Cir.1982).
First off, “ordinarily a motion to dismiss is not the appropriate vehicle to address the
defense of laches,” American Commercial Barge Lines, LLC v. Reserve FTL, Inc., 2002 WL
31749171 (N.D. Ill. Dec. 3, 2002) (citing Farries v. Stanadyne/Chicago Div., 832 F.2d 374, 376
(7th Cir. 1987)), because “the defense of laches … involves more than the mere lapse of time and
depends largely on questions of fact.” Id. (quoting 5 Wright & Miller, Federal Practice and
Procedure § 1277 (2d ed. 1987). Accordingly, most courts have found the defense “unsuitable for
resolution at the pleading stage.” Id. (citation omitted).
Defendant Evers relies on Soules v. Kauians for Nukolii Campaign Comm., 849 F.2d 1176,
1180 (9th Cir. 1988), ECF No. 59 at 17, a case with entirely different facts. There, the Ninth
Circuit held that plaintiff Equal Protection claim was barred by laches because they “knew the
basis of their equal claim well in advance” of the election, months in advance in fact, Soules, 849
F.2d at 1181, and failed to provide any explanation for their failure to press their claim before the
election. Id. at 1182.
Here, by contrast to Defendants’ assertions, all of the unlawful conduct occurred during
the course of the election and in the post-election vote counting, manipulation, and even
fabrication. Plaintiff could not have known the basis of these claims, or presented evidence
22

1766 Case 2:20-cv-01771-PP Filed 12/08/20 Page 22 of 31 Document 72

substantiating their claim, until after the election. Further, because Wisconsin election officials
and other third parties involved did not announce or publicize their misconduct, and in fact
prevented Republican poll watchers from observing the ballot counting and handling, it took
Plaintiff additional time post-election to gather the fact and expert witness testimony presented in
the Amended Complaint. Had they filed before the election, as the Defendant Secretary asserts, it
would have been dismissed as speculative--because the injuries asserted had not occurred--and on
ripeness grounds.
Any “delay” in filing after Election Day is almost entirely due to Defendants failure to
promptly complete counting until weeks after November 3, 2020. Wisconsin did not complete
counting at the same time it certified results, which was not until November 30, 2020, and Plaintiff
filed the initial complaint (which is materially the same as the Amended Complaint filed December
3, 2020), and TRO motion the very next day on December 1, 2020. Defendants cannot now assert
the equitable affirmative defense of laches, when there is no unreasonable delay nor is there any
genuine prejudice to the Defendants.
C.

Mootness

Defendant Evers’ mootness argument is similarly without merit. See ECF No. 59 at 1314. This argument is based on the false premise that this Court cannot order any of the relief
requested in the Amended Complaint or the TRO Motion because the “requests for relief relate to
the general election held on November 3, 2020, and its results,” id. at 13, and “[b]ecause Wisconsin
has already certified its results.” Id. at 14.
It is well settled that “the passage of an election does not necessarily render an electionrelated challenge moot and that such challenges may fall within the ‘capable of repetition yet
evading review’ exception to the mootness doctrine.” Tobin for Governor v. Illinois State Bd. of
Elections, 268 F.3d 517, 528 (7th Cir. 2001) (citations omitted). This exception applies where:
23

1767 Case 2:20-cv-01771-PP Filed 12/08/20 Page 23 of 31 Document 72

“(1) the challenged action is too short in duration to be fully litigated prior to its cessation or
expiration, and (2) there is a reasonable expectation that the same complaining party will be
subjected to the same action again.” Id. at 529 (citations omitted). Plaintiff’s claims regarding
Defendants’ arbitrary and disparate implementation of Wisconsin law, in a manner that directly
contravenes Wisconsin Election Code provisions governing absentee voting—in particular their
guidance relating to “indefinitely confined” (see Wis. Stat. § 6.86 & Amended Complaint, Section
I.A) voters and witness address verification requirements (see Wis. Stat. § 6.87 & Amended
Complaint Section I.B—where officials have violated statute in this election, and further assert
that it was proper to do so, their conduct will certainly continue in the next election.
In any case, the certification of election results render Plaintiff’s election-related claims
moot. In Siegel v. Lepore, 234 F.3d 1163 (11th Cir. 2000), a case arising from the 2000 General
Election, the Eleventh Circuit addressed post-certification election challenges:
This Court has held that “[a] claim for injunctive relief may become moot if: (1) it
can be said with assurance that there is no reasonable expectation that the alleged
violation will recur and (2) interim relief or events have completely and irrevocably
eradicated the effects of the alleged violation.
We conclude that neither of these elements is satisfied in this case. The Democratic
candidate, Vice President Gore, and others are currently contesting the election
results in various lawsuits in numerous Florida state courts. There are still manual
recount votes from at least Volusia and Broward Counties in the November 26th
official election results of the Florida Secretary of State. In view of the complex and
ever-shifting circumstances of the case, we cannot say with any confidence that
no live controversy is before us.
Id. at 1172-73 (emphasis added). See also Common Cause, 347 F.Supp.3d at 1291 (holding that
certification of election results did not moot post-election claim for emergency injunctive relief).
The cutoff for election-related challenges, at least in the Seventh Circuit, appears to be the date
that the electors meet, rather than the date of certification: “even though the election has passed,

24

1768 Case 2:20-cv-01771-PP Filed 12/08/20 Page 24 of 31 Document 72

the meeting of electors obviously has not, so plaintiff’s claim here is hardly moot.” Swaffer v.
Deininger, No. 08-CV-208, 2008 WL 5246167, at *4 (E.D. Wis. Dec. 17, 2008).
A recent decision by this very Court appears to have applied the Swaffer court’s
interpretation—that the relevant date for federal election-related claims is the December 14, 2020
meeting of the electors, rather than the date of certification—from which it follows that Plaintiff’s
request for relief are not moot. See ECF No. 29, William Feehan v. Wisconsin Elections
Commission, et al., Case No. 20-cv-1771-pp (E.D. Wis. Dec. 4, 2020) (“Feehan”). In response
to Plaintiff’s request for an expedited briefing schedule, this Court explained that, under 3 U.S.C
§5, while the “Safe Harbor” date is December 8, 2020, the Electoral College does not vote for
president and vice president until December 14, 2020. Id. at 7. While “December 8 is a critical
date for resolution of any state court litigation involving an aggrieved candidate,” like Plaintiff, it
is not necessary for this federal Court to grant or deny the injunctive relief requested “before the
safe harbor deadline for state courts to resolve alleged violations of” Wisconsin election laws. Id.
at 8 (emphasis in original). Implicit in this Court’s determination that—because the “electors do
not meet until December 14, 2020,” a less “truncated briefing schedule” is appropriate—this Court
can still grant some or perhaps all of the relief requested and this Plaintiff’s claims are not moot.
Finally, Defendant Evers cites the Eleventh Circuit case in Wood as authority in his
mootness argument, ECF No. 57 at 14, but fails to acknowledge the significant differences between
Mr. Feehan’s requests for relief in the Amended Complaint and Mr. Wood’s in that proceeding.
Unlike Plaintiff, Mr. Wood did not ask the district court to de-certify the election (instead asking
for a delay in certification), nor did he assert claims under the Elections and Electors Clause. The
Wood court held that Georgia’s certification of results mooted Mr. Wood’s request to delay
certification, so the court could not consider a request for de-certification “made for the first time

25

1769 Case 2:20-cv-01771-PP Filed 12/08/20 Page 25 of 31 Document 72

on appeal.” Id. at 18. Plaintiff made his request for de-certification and other injunctive relief in
the Amended Complaint, Compl. at ¶¶ 142-145, and this request is not mooted by Defendants’
certification of the results. While the Wood court finds that the mootness exception for “capable
of repetition yet evading review,” discussed above, was not applicable, their denial was based on
the specific “posture of [his] appeal” and the specific relief requested (delay of certification), id.
at *7, which are not applicable to Plaintiff’s claims and requested relief.
This Court can grant the primary relief requested by Plaintiff – de-certification of
Wisconsin’s election results and an injunction prohibiting State Defendants from transmitting the
results – as discussed in Section I.F. on abstention below. There is also no question that this Court
can order other types of declaratory and injunctive relief requested by Plaintiff, in particular,
impounding Dominion voting machines and software for inspection, nor have State Defendants
claimed otherwise.
D.

Eleventh Amendment

Defendants assert that Plaintiff’s claims are barred by the Eleventh Amendment. See ECF
No. 52 at 10-11; ECF No. 59 at 14-16. Defendants fail, however, to acknowledge that the Eleventh
Amendment permits claims for prospective and injunctive relief enjoining state officials from
ongoing violations of federal law or the U.S. Constitution. At this stage of the proceeding, this
Court “need only conduct a straightforward inquiry into whether the complaint alleges an ongoing
violation of federal law and seeks relief properly characterized as prospective.” Council 31 of the
Am. Fed’n of State, Cty. & Mun. Employees, AFL-CIO v. Quinn, 680 F.3d 875, 882 (7th Cir. 2012)
(citations omitted).
Plaintiff’s requests for relief in the Amended Complaint meet both requirements. First,
Plaintiff has identified ongoing violations of federal law, among other things by certifying results
of the 2020 General Election that are tainted not only by widespread fraud, but by ongoing
26

1770 Case 2:20-cv-01771-PP Filed 12/08/20 Page 26 of 31 Document 72

violations of the Electors and Elections Clauses, the Equal Protection and Due Process Clauses, as
well as likely violations of federal law including the Voting Rights Act and the Help America Vote
Act. Second, the declaratory and injunctive relief requested is prospective including: an order
directing Defendants to de-certify the election results, enjoining Defendants from transmitting the
currently certified election results to the Electoral College, TRO to seize and impound servers,
voting machines and other “election materials” for forensic audit and inspection by Plaintiff. ECF
No. 9 ¶142. Moreover, the Amended Complaint requests that this Court prospectively enjoin
Defendants to take actions that are specifically in the scope of their statutory authority. See
Bostelmann, 2020 WL 5627186, at *12 (finding that WEC is responsible for “administration of
Wisconsin’s elections,” and “WEC has the authority to implement a federal court order relating to
election law to redress [Plaintiff’s] alleged injuries.”).
E.

Administrative Exhaustion and Exclusive State Jurisdiction

Defendant Evers asserts that Plaintiff’s claims are barred alternately because he failed to
exhaust administrative remedies (namely, a complaint to Defendant WEC under Wis. Stat. § 5.06)
and because Wisconsin’s recount statute, Wis. Stat. § 9.01(11), “‘constitutes the exclusive judicial
remedy’ for such claims under state law.” ECF No. 59 at 10 (emphasis added) (citing Trump v.
Evers, No. 2020AP1971-OA, Order at *2 (Wis. Dec. 3, 2020)). Irrespective of whether the cited
Wisconsin statutes set forth exclusive state administrative or judicial remedies, these provisions
do not bar the Plaintiff’s claims under the U.S. Constitution.
The Elections and Electors Clauses of the U.S. Constitution delegate to the Wisconsin
Legislature the power to determine the manner of holding federal elections and selecting
Presidential Electors:
But in the case of a law enacted by a state legislature applicable not only to elections
to state offices, but also to the selection of Presidential electors, the legislature is
not acting solely under the authority given it by the people of the State, but by virtue
27

1771 Case 2:20-cv-01771-PP Filed 12/08/20 Page 27 of 31 Document 72

of a direct grant of authority made under Art. II, § 1, cl. 2, of the United States
Constitution.
Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000). As such, the state laws – and
the implementation thereof by the State’s executive and judicial branches – are inherently a federal
question, and a “significant departure from the legislative scheme for appointing Presidential
electors presents a federal constitutional question.” Bush v. Gore, 531 U.S. 98, 113 (2000) (finding
that state court’s recount standards violated the Equal Protection and Due Process Clauses).
Accordingly, the Wisconsin statutes cited above cannot bar Plaintiff’s federal constitutional
claims, or impose an administrative exhaustion requirement where Plaintiff is not seeking review
of state administrative action.
This Court has subject matter jurisdiction for Plaintiff’s federal constitutional claims under
28 U.S.C. § 1331, which provides that “[t]he district courts shall have original jurisdiction of all
civil actions arising under the Constitution, laws, or treaties of the United States.” This Court also
has subject matter jurisdiction under 28 U.S.C. § 1343 because this action involves a federal
election for President of the United States. The jurisdiction of the Court to grant declaratory relief
is conferred by 28 U.S.C. §§ 2201 and 2202 and by Rule 57, Fed. R. Civ. P. “The right to vote is
protected in more than the initial allocation of the franchise.
To the extent the Amended Complaint implicates Wisconsin statutory or constitutional law,
jurisdiction remains appropriate under 28 U.S.C. § 1367. As a threshold matter, the supplemental
jurisdiction statute, section 1367, says that district courts “shall have” jurisdiction over the nonfederal claims forming part of the same case or controversy, ... if state law claims are asserted as
part of the same case or controversy with a federal claim, the district court has discretion to exercise
supplemental jurisdiction over the remaining state law claims and the mandatory remand provision
of the procedure after removal statute does not apply.
28

1772 Case 2:20-cv-01771-PP Filed 12/08/20 Page 28 of 31 Document 72

F.

Abstention

Defendant Evers urges this Court to dismiss the Amended Complaint and abstain from
taking jurisdiction over the claims raised in the Amended Complaint. ECF No. 59 at 11-12. The
standard for federal abstention in the voting rights and state election law context, Harman v.
Forssenius, 380 U.S. 528, 534, (1965), where the Supreme Court explained that abstention may
be appropriate where “the federal constitutional question is dependent upon, or may be materially
altered by, the determination of an uncertain issue of state law,” and “deference to state court
adjudication only be made where the issue of state law is uncertain.” Harman, 380 U.S. at 534
(citations omitted). But if state law in question “is not fairly subject to an interpretation which will
render unnecessary or substantially modify the federal constitutional question,” then “it is the duty
of the federal court to exercise its properly invoked jurisdiction.” Id. (citation omitted).
Governor Evers claims that the “state law issues underlying Plaintiff’s claims are
sufficiently uncertain to warrant abstention,” and points to the order of the Supreme Court of
Wisconsin addressing a petition alleging misconduct by WEC during the 2020 General Election
that “raises time-sensitive questions of state-wide concern.” ECF No. 59 at 12 (citing Wisconsin
Voters Alliance v. Wisconsin Elections Commission, No. 2020AP1930-OA, at *1 (Wis. Dec. 4,
2020) (“Wisconsin Voters Alliance”). What he neglects to mention is that the Wisconsin Supreme
Court denied the petition, “the third time that a majority of [the Wisconsin Supreme Court] has
turned its back on pleas from the public to address a matter of state-wide concern,” involving
alleged wrongdoing by Defendant WEC during the 2020 General Election, “that requires a
declaration of what the statutes require for absentee voting.” Wisconsin Voters Alliance at *5
(Roggensack, C.J., dissenting). Abstention requires more than uncertainty about state law – and
notably, the majority asserted only that the petition required resolution of “disputed factual
claims,” id. at 3, not any uncertainty regarding the interpretation of the statutes – it requires the
29

1773 Case 2:20-cv-01771-PP Filed 12/08/20 Page 29 of 31 Document 72

likelihood that a state court will resolve that uncertainty. Here, the relevant state court has
repeatedly refused to address these issues; by accepting jurisdiction this Court is not “injecting
itself into the middle of [a] dispute,” ECF No. 59 at 12, as there is no current state court proceeding
addressing these issues (or at least not any identified by Defendant).
Respectfully submitted, this 8th day of December, 2020.
ATTORNEYS FOR PLAINTIFF

/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

30

1774 Case 2:20-cv-01771-PP Filed 12/08/20 Page 30 of 31 Document 72

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

31

1775 Case 2:20-cv-01771-PP Filed 12/08/20 Page 31 of 31 Document 72

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
______________________________________________________________________________
DECLARATION OF WILLIAM FEEHAN
______________________________________________________________________________
Pursuant to 28 U.S.C.§ 1746, I, William Feehan, hereby declare as follows:
1) I am Plaintiff in the above action, and am a resident of the City of La Crosse and La Crosse
County, Wisconsin.
2) I am a lawfully registered Wisconsin voter and lawfully voted for President Donald J.
Trump in the November 3, 2020 election.
3) I am a nominee of the Republican Party to be a Presidential Elector on behalf of the State
of Wisconsin and am pledged as an Elector to vote for him when the Electoral College meets
December 14, 2020.

1776

Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 2 Document 72-1

I declare under penalty of perjury, that the foregoing is true and correct to the best of my
knowledge.
Dated December 8, 2020

/s William Feehan
William Feehan

1777

Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 2 Document 72-1

.

No. ______, Original

In the Supreme Court of the United States
STATE OF TEXAS,
Plaintiff,
v.
COMMONWEALTH OF PENNSYLVANIA, STATE OF
GEORGIA, STATE OF MICHIGAN, AND STATE OF
WISCONSIN,
Defendants.
MOTION FOR LEAVE TO FILE BILL OF
COMPLAINT
Ken Paxton*
Attorney General of Texas
Brent Webster
First Assistant Attorney
General of Texas
Lawrence Joseph
Special Counsel to the
Attorney General of Texas
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kenneth.paxton@oag.texas.gov
(512) 936-1414
*

Counsel of Record

1778 Case 2:20-cv-01771-PP Filed 12/08/20 Page 1 of 92 Document 72-2

i
TABLE OF CONTENTS
Pages
Motion for leave to File Bill of Complaint ................. 1

1779 Case 2:20-cv-01771-PP Filed 12/08/20 Page 2 of 92 Document 72-2

No. ______, Original

In the Supreme Court of the United States
STATE OF TEXAS,
Plaintiff,
v.
COMMONWEALTH OF PENNSYLVANIA, STATE OF
GEORGIA, STATE OF MICHIGAN, AND STATE OF
WISCONSIN,
Defendants.
MOTION FOR LEAVE TO FILE
BILL OF COMPLAINT
Pursuant to 28 U.S.C. § 1251(a) and this Court’s
Rule 17, the State of Texas respectfully seeks leave to
file the accompanying Bill of Complaint against the
States of Georgia, Michigan, and Wisconsin and the
Commonwealth of Pennsylvania (collectively, the
“Defendant States”) challenging their administration
of the 2020 presidential election.
As set forth in the accompanying brief and
complaint, the 2020 election suffered from significant
and unconstitutional irregularities in the Defendant
States:
• Non-legislative actors’ purported amendments to
States’ duly enacted election laws, in violation of
the Electors Clause’s vesting State legislatures
with
plenary
authority
regarding
the
appointment of presidential electors.

1780 Case 2:20-cv-01771-PP Filed 12/08/20 Page 3 of 92 Document 72-2

•

Intrastate differences in the treatment of voters,
with more favorable allotted to voters – whether
lawful or unlawful – in areas administered by
local government under Democrat control and
with populations with higher ratios of Democrat
voters than other areas of Defendant States.
• The appearance of voting irregularities in the
Defendant States that would be consistent with
the unconstitutional relaxation of ballot-integrity
protections in those States’ election laws.
All these flaws – even the violations of state election
law – violate one or more of the federal requirements
for elections (i.e., equal protection, due process, and
the Electors Clause) and thus arise under federal law.
See Bush v Gore, 531 U.S. 98, 113 (2000) (“significant
departure from the legislative scheme for appointing
Presidential electors presents a federal constitutional
question”) (Rehnquist, C.J., concurring). Plaintiff
State respectfully submits that the foregoing types of
electoral irregularities exceed the hanging-chad saga
of the 2000 election in their degree of departure from
both state and federal law. Moreover, these flaws
cumulatively preclude knowing who legitimately won
the 2020 election and threaten to cloud all future
elections.
Taken together, these flaws affect an outcomedeterminative numbers of popular votes in a group of
States that cast outcome-determinative numbers of
electoral votes. This Court should grant leave to file
the complaint and, ultimately, enjoin the use of
unlawful election results without review and
ratification by the Defendant States’ legislatures and
remand to the Defendant States’ respective

1781 Case 2:20-cv-01771-PP Filed 12/08/20 Page 4 of 92 Document 72-2

legislatures to appoint Presidential Electors in a
manner consistent with the Electors Clause and
pursuant to 3 U.S.C. § 2.
December 7, 2020
Respectfully submitted,
Ken Paxton*
Attorney General of Texas
Brent Webster
First Assistant Attorney
General of Texas
Lawrence Joseph
Special Counsel to the
Attorney General of Texas
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kenneth.paxton@oag.texas.gov
(512) 936-1414
*

Counsel of Record

1782 Case 2:20-cv-01771-PP Filed 12/08/20 Page 5 of 92 Document 72-2

No. ______, Original

In the Supreme Court of the United States
STATE OF TEXAS,
Plaintiff,
v.
COMMONWEALTH OF PENNSYLVANIA, STATE OF
STATE OF GEORGIA, STATE OF MICHIGAN, AND
STATE OF WISCONSIN,
Defendants.
BILL OF COMPLAINT
Ken Paxton*
Attorney General of Texas
Brent Webster
First Assistant Attorney
General of Texas
Lawrence Joseph
Special Counsel to the
Attorney General of Texas
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kenneth.paxton@oag.texas.gov
(512) 936-1414
*

Counsel of Record

1783 Case 2:20-cv-01771-PP Filed 12/08/20 Page 6 of 92 Document 72-2

i
TABLE OF CONTENTS
Pages
Bill of Complaint ........................................................ 1
Nature of the Action ................................................... 3
Jurisdiction and Venue .............................................. 8
Parties ....................................................................... 10
Legal Background .................................................... 10
Facts.......................................................................... 12
Commonwealth of Pennsylvania ....................... 14
State of Georgia ................................................. 20
State of Michigan ............................................... 23
State of Wisconsin.............................................. 29
Count I: Electors Clause .......................................... 36
Count II: Equal Protection ....................................... 37
Count III: Due Process ............................................. 38
Prayer for Relief ....................................................... 39

1784 Case 2:20-cv-01771-PP Filed 12/08/20 Page 7 of 92 Document 72-2

1
“[T]hat form of government which is best contrived to
secure an impartial and exact execution of the law, is
the best of republics.”
—John Adams

BILL OF COMPLAINT
Our Country stands at an important crossroads.
Either the Constitution matters and must be followed,
even when some officials consider it inconvenient or
out of date, or it is simply a piece of parchment on
display at the National Archives. We ask the Court to
choose the former.
Lawful elections are at the heart of our
constitutional democracy. The public, and indeed the
candidates themselves, have a compelling interest in
ensuring that the selection of a President—any
President—is legitimate. If that trust is lost, the
American Experiment will founder. A dark cloud
hangs over the 2020 Presidential election.
Here is what we know. Using the COVID-19
pandemic as a justification, government officials in
the defendant states of Georgia, Michigan, and
Wisconsin, and the Commonwealth of Pennsylvania
(collectively, “Defendant States”), usurped their
legislatures’ authority and unconstitutionally revised
their state’s election statutes. They accomplished
these statutory revisions through executive fiat or
friendly lawsuits, thereby weakening ballot integrity.
Finally, these same government officials flooded the
Defendant States with millions of ballots to be sent
through the mails, or placed in drop boxes, with little

1785 Case 2:20-cv-01771-PP Filed 12/08/20 Page 8 of 92 Document 72-2

2
or no chain of custody1 and, at the same time,
weakened the strongest security measures protecting
the integrity of the vote—signature verification and
witness requirements.
Presently, evidence of material illegality in the
2020 general elections held in Defendant States grows
daily. And, to be sure, the two presidential candidates
who have garnered the most votes have an interest in
assuming the duties of the Office of President without
a taint of impropriety threatening the perceived
legitimacy of their election. However, 3 U.S.C. § 7
requires that presidential electors be appointed on
December 14, 2020. That deadline, however, should
not cement a potentially illegitimate election result in
the middle of this storm—a storm that is of the
Defendant States’ own making by virtue of their own
unconstitutional actions.
This Court is the only forum that can delay the
deadline for the appointment of presidential electors
under 3 U.S.C. §§ 5, 7. To safeguard public legitimacy
at this unprecedented moment and restore public
trust in the presidential election, this Court should
extend the December 14, 2020 deadline for Defendant
States’ certification of presidential electors to allow
these investigations to be completed. Should one of
the two leading candidates receive an absolute
majority of the presidential electors’ votes to be cast
on December 14, this would finalize the selection of
our President. The only date that is mandated under
See https://georgiastarnews.com/2020/12/05/dekalbcounty-cannot-find-chain-of-custody-records-for-absenteeballots-deposited-in-drop-boxes-it-has-not-been-determined-ifresponsive-records-to-your-request-exist/
1

1786 Case 2:20-cv-01771-PP Filed 12/08/20 Page 9 of 92 Document 72-2

3
the Constitution, however, is January 20, 2021. U.S.
CONST. amend. XX.
Against that background, the State of Texas
(“Plaintiff State”) brings this action against
Defendant States based on the following allegations:
NATURE OF THE ACTION
1.
Plaintiff State challenges Defendant
States’ administration of the 2020 election under the
Electors Clause of Article II, Section 1, Clause 2, and
the Fourteenth Amendment of the U.S. Constitution.
2.
This case presents a question of law: Did
Defendant States violate the Electors Clause (or, in
the alternative, the Fourteenth Amendment) by
taking—or allowing—non-legislative actions to
change the election rules that would govern the
appointment of presidential electors?
3.
Those unconstitutional changes opened
the door to election irregularities in various forms.
Plaintiff State alleges that each of the Defendant
States flagrantly violated constitutional rules
governing the appointment of presidential electors. In
doing so, seeds of deep distrust have been sown across
the country. In the spirit of Marbury v. Madison, this
Court’s attention is profoundly needed to declare what
the law is and to restore public trust in this election.
4.
As Justice Gorsuch observed recently,
“Government is not free to disregard the
[Constitution] in times of crisis. … Yet recently,
during the COVID pandemic, certain States seem to
have ignored these long-settled principles.” Roman
Catholic Diocese of Brooklyn, New York v. Cuomo, 592
U.S. ____ (2020) (Gorsuch, J., concurring). This case is
no different.

1787 Case 2:20-cv-01771-PP Filed 12/08/20 Page 10 of 92 Document 72-2

4
5.
Each of Defendant States acted in a
common pattern. State officials, sometimes through
pending litigation (e.g., settling “friendly” suits) and
sometimes unilaterally by executive fiat, announced
new rules for the conduct of the 2020 election that
were inconsistent with existing state statutes defining
what constitutes a lawful vote.
6.
Defendant States also failed to segregate
ballots in a manner that would permit accurate
analysis to determine which ballots were cast in
conformity with the legislatively set rules and which
were not. This is especially true of the mail-in ballots
in these States. By waiving, lowering, and otherwise
failing to follow the state statutory requirements for
signature validation and other processes for ballot
security, the entire body of such ballots is now
constitutionally suspect and may not be legitimately
used to determine allocation of the Defendant States’
presidential electors.
7.
The rampant lawlessness arising out of
Defendant States’ unconstitutional acts is described
in a number of currently pending lawsuits in
Defendant States or in public view including:
• Dozens of witnesses testifying under oath about:
the physical blocking and kicking out of
Republican poll challengers; thousands of the
same ballots run multiple times through
tabulators; mysterious late night dumps of
thousands of ballots at tabulation centers;
illegally backdating thousands of ballots;
signature verification procedures ignored; more

1788 Case 2:20-cv-01771-PP Filed 12/08/20 Page 11 of 92 Document 72-2

•

•

5
than 173,000 ballots in the Wayne County, MI
center that cannot be tied to a registered voter;2
Videos of: poll workers erupting in cheers as poll
challengers are removed from vote counting
centers; poll watchers being blocked from entering
vote counting centers—despite even having a
court order to enter; suitcases full of ballots being
pulled out from underneath tables after poll
watchers were told to leave.
Facts for which no independently verified
reasonable explanation yet exists: On October 1,
2020, in Pennsylvania a laptop and several USB
drives, used to program Pennsylvania’s Dominion
voting machines, were mysteriously stolen from a
warehouse in Philadelphia. The laptop and the
USB drives were the only items taken, and
potentially could be used to alter vote tallies; In
Michigan, which also employed the same
Dominion voting system, on November 4, 2020,
Michigan election officials have admitted that a
purported “glitch” caused 6,000 votes for
President Trump to be wrongly switched to
Democrat Candidate Biden. A flash drive
containing tens of thousands of votes was left
unattended in the Milwaukee tabulations center
in the early morning hours of Nov. 4, 2020,
without anyone aware it was not in a proper chain
of custody.

All exhibits cited in this Complaint are in the Appendix to
the Plaintiff State’s forthcoming motion to expedite (“App. 1a151a”). See Complaint (Doc. No. 1), Donald J. Trump for
President, Inc. v. Benson, 1:20-cv-1083 (W.D. Mich. Nov. 11,
2020) at ¶¶ 26-55 & Doc. Nos. 1-2, 1-4.
2

1789 Case 2:20-cv-01771-PP Filed 12/08/20 Page 12 of 92 Document 72-2

6
8.
Nor was this Court immune from the
blatant disregard for the rule of law. Pennsylvania
itself played fast and loose with its promise to this
Court. In a classic bait and switch, Pennsylvania used
guidance from its Secretary of State to argue that this
Court should not expedite review because the State
would segregate potentially unlawful ballots. A court
of law would reasonably rely on such a representation.
Remarkably, before the ink was dry on the Court’s 44 decision, Pennsylvania changed that guidance,
breaking the State’s promise to this Court. Compare
Republican Party of Pa. v. Boockvar, No. 20-542, 2020
U.S. LEXIS 5188, at *5-6 (Oct. 28, 2020) (“we have
been informed by the Pennsylvania Attorney General
that the Secretary of the Commonwealth issued
guidance today directing county boards of elections to
segregate [late-arriving]
ballots”) (Alito, J.,
concurring) with Republican Party v. Boockvar, No.
20A84, 2020 U.S. LEXIS 5345, at *1 (Nov. 6, 2020)
(“this Court was not informed that the guidance
issued on October 28, which had an important bearing
on the question whether to order special treatment of
the ballots in question, had been modified”) (Alito, J.,
Circuit Justice).
9.
Expert analysis using a commonly
accepted statistical test further raises serious
questions as to the integrity of this election.
10.
The probability of former Vice President
Biden winning the popular vote in the four Defendant
States—Georgia, Michigan, Pennsylvania, and
Wisconsin—independently given President Trump’s
early lead in those States as of 3 a.m. on November 4,
2020, is less than one in a quadrillion, or 1 in
1,000,000,000,000,000. For former Vice President
Biden to win these four States collectively, the odds of

1790 Case 2:20-cv-01771-PP Filed 12/08/20 Page 13 of 92 Document 72-2

7
that event happening decrease to less than one in a
quadrillion to the fourth power (i.e., 1 in
1,000,000,000,000,0004). See Decl. of Charles J.
Cicchetti, Ph.D. (“Cicchetti Decl.”) at ¶¶ 14-21, 30-31.
See App. 4a-7a, 9a.
11.
The same less than one in a quadrillion
statistical improbability of Mr. Biden winning the
popular vote in the four Defendant States—Georgia,
Michigan,
Pennsylvania,
and
Wisconsin—
independently exists when Mr. Biden’s performance
in each of those Defendant States is compared to
former Secretary of State Hilary Clinton’s
performance in the 2016 general election and
President Trump’s performance in the 2016 and 2020
general elections. Again, the statistical improbability
of Mr. Biden winning the popular vote in these four
States collectively is 1 in 1,000,000,000,000,0005. Id.
10-13, 17-21, 30-31.
12.
Put simply, there is substantial reason to
doubt the voting results in the Defendant States.
13.
By purporting to waive or otherwise
modify the existing state law in a manner that was
wholly ultra vires and not adopted by each state’s
legislature, Defendant States violated not only the
Electors Clause, U.S. CONST. art. II, § 1, cl. 2, but also
the Elections Clause, id. art. I, § 4 (to the extent that
the Article I Elections Clause textually applies to the
Article II process of selecting presidential electors).
14.
Plaintiff States and their voters are
entitled to a presidential election in which the votes
from each of the states are counted only if the ballots
are cast and counted in a manner that complies with
the pre-existing laws of each state. See Anderson v.
Celebrezze, 460 U.S. 780, 795 (1983) (“for the

1791 Case 2:20-cv-01771-PP Filed 12/08/20 Page 14 of 92 Document 72-2

8
President and the Vice President of the United States
are the only elected officials who represent all the
voters in the Nation.”). Voters who cast lawful ballots
cannot have their votes diminished by states that
administered their 2020 presidential elections in a
manner where it is impossible to distinguish a lawful
ballot from an unlawful ballot.
15.
The number of absentee and mail-in
ballots that have been handled unconstitutionally in
Defendant States greatly exceeds the difference
between the vote totals of the two candidates for
President of the United States in each Defendant
State.
16.
In addition to injunctive relief for this
election, Plaintiff State seeks declaratory relief for all
presidential elections in the future. This problem is
clearly capable of repetition yet evading review. The
integrity of our constitutional democracy requires
that states conduct presidential elections in
accordance with the rule of law and federal
constitutional guarantees.
JURISDICTION AND VENUE
17.
This Court has original and exclusive
jurisdiction over this action because it is a
“controvers[y] between two or more States” under
Article III, § 2, cl. 2 of the U.S. Constitution and 28
U.S.C. § 1251(a) (2018).
18.
In a presidential election, “the impact of
the votes cast in each State is affected by the votes
cast for the various candidates in other States.”
Anderson, 460 U.S. at 795. The constitutional failures
of Defendant States injure Plaintiff States because
“‘the right of suffrage can be denied by a debasement
or dilution of the weight of a citizen’s vote just as

1792 Case 2:20-cv-01771-PP Filed 12/08/20 Page 15 of 92 Document 72-2

9
effectively as by wholly prohibiting the free exercise of
the franchise.’” Bush v. Gore, 531 U.S. 98, 105 (2000)
(quoting Reynolds v. Sims, 377 U. S. 533, 555 (1964))
(Bush II). In other words, Plaintiff State is acting to
protect the interests of its respective citizens in the
fair and constitutional conduct of elections used to
appoint presidential electors.
19.
This Court’s Article III decisions indicate
that only a state can bring certain claims. Lance v.
Coffman, 549 U.S. 437, 442 (2007) (distinguishing
citizen plaintiffs from citizen relators who sued in the
name of a state); cf. Massachusetts v. EPA, 549 U.S.
497, 520 (2007) (courts owe states “special solicitude
in standing analysis”). Moreover, redressability likely
would undermine a suit against a single state officer
or State because no one State’s electoral votes will
make a difference in the election outcome. This action
against multiple State defendants is the only
adequate remedy for Plaintiff States, and this Court
is the only court that can accommodate such a suit.
20.
Individual state courts do not—and
under the circumstance of contested elections in
multiple states, cannot—offer an adequate remedy to
resolve election disputes within the timeframe set by
the Constitution to resolve such disputes and to
appoint a President via the electoral college. No
court—other
than
this
Court—can
redress
constitutional injuries spanning multiple States with
the sufficient number of states joined as defendants or
respondents to make a difference in the Electoral
College.
21.
This Court is the sole forum in which to
exercise the jurisdictional basis for this action.

1793 Case 2:20-cv-01771-PP Filed 12/08/20 Page 16 of 92 Document 72-2

10
PARTIES
22.
Plaintiff is the State of Texas, which is a
sovereign State of the United States.
23.
Defendants are the Commonwealth of
Pennsylvania and the States of Georgia, Michigan,
and Wisconsin, which are sovereign States of the
United States.
LEGAL BACKGROUND
24.
Under the Supremacy Clause, the “Constitution, and the laws of the United States which
shall be made in pursuance thereof … shall be the
supreme law of the land.” U.S. CONST. Art. VI, cl. 2.
25.
“The individual citizen has no federal
constitutional right to vote for electors for the
President of the United States unless and until the
state legislature chooses a statewide election as the
means to implement its power to appoint members of
the electoral college.” Bush II, 531 U.S. at 104 (citing
U.S. CONST. art. II, § 1).
26.
State legislatures have plenary power to
set the process for appointing presidential electors:
“Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors.”
U.S. CONST. art. II, §1, cl. 2; see also Bush II, 531 U.S.
at 104 (“[T]he state legislature’s power to select the
manner for appointing electors is plenary.” (emphasis
added)).
27.
At the time of the Founding, most States
did not appoint electors through popular statewide
elections. In the first presidential election, six of the
ten States that appointed electors did so by direct
legislative appointment. McPherson v. Blacker, 146
U.S. 1, 29-30 (1892).

1794 Case 2:20-cv-01771-PP Filed 12/08/20 Page 17 of 92 Document 72-2

11
28.
In the second presidential election, nine
of the fifteen States that appointed electors did so by
direct legislative appointment. Id. at 30.
29.
In the third presidential election, nine of
sixteen States that appointed electors did so by direct
legislative appointment. Id. at 31. This practice
persisted in lesser degrees through the Election of
1860. Id. at 32.
30.
Though “[h]istory has now favored the
voter,” Bush II, 531 U.S. at 104, “there is no doubt of
the right of the legislature to resume the power [of
appointing presidential electors] at any time, for it can
neither be taken away nor abdicated.” McPherson, 146
U.S. at 35 (emphasis added); cf. 3 U.S.C. § 2
(“Whenever any State has held an election for the
purpose of choosing electors, and has failed to make a
choice on the day prescribed by law, the electors may
be appointed on a subsequent day in such a manner
as the legislature of such State may direct.”).
31.
Given
the
State
legislatures’
constitutional primacy in selecting presidential
electors, the ability to set rules governing the casting
of ballots and counting of votes cannot be usurped by
other branches of state government.
32.
The Framers of the Constitution decided
to select the President through the Electoral College
“to afford as little opportunity as possible to tumult
and disorder” and to place “every practicable obstacle
[to] cabal, intrigue, and corruption,” including “foreign
powers” that might try to insinuate themselves into
our elections. THE FEDERALIST NO. 68, at 410-11 (C.
Rossiter, ed. 1961) (Madison, J.).
33.
Defendant States’ applicable laws are set
out under the facts for each Defendant State.

1795 Case 2:20-cv-01771-PP Filed 12/08/20 Page 18 of 92 Document 72-2

12
FACTS
34.
The use of absentee and mail-in ballots
skyrocketed in 2020, not only as a public-health
response to the COVID-19 pandemic but also at the
urging of mail-in voting’s proponents, and most
especially executive branch officials in Defendant
States. According to the Pew Research Center, in the
2020 general election, a record number of votes—
about 65 million—were cast via mail compared to 33.5
million mail-in ballots cast in the 2016 general
election—an increase of more than 94 percent.
35.
In the wake of the contested 2000
election, the bipartisan Jimmy Carter-James Baker
commission identified absentee ballots as “the largest
source of potential voter fraud.” BUILDING
CONFIDENCE IN U.S. ELECTIONS: REPORT OF THE
COMMISSION ON FEDERAL ELECTION REFORM, at 46
(Sept. 2005).
36.
Concern over the use of mail-in ballots is
not novel to the modern era, Dustin Waters, Mail-in
Ballots Were Part of a Plot to Deny Lincoln Reelection
in 1864, WASH. POST (Aug. 22, 2020),3 but it remains a
current concern. Crawford v. Marion Cty. Election
Bd., 553 U.S. 181, 194-96 & n.11 (2008); see also Texas
Office of the Attorney General, AG Paxton Announces
Joint Prosecution of Gregg County Organized Election
Fraud in Mail-In Balloting Scheme (Sept. 24, 2020);
Harriet Alexander & Ariel Zilber, Minneapolis police
opens investigation into reports that Ilhan Omar's
supporters illegally harvested Democrat ballots in
Minnesota, DAILY MAIL, Sept. 28, 2020.
https://www.washingtonpost.com/history/2020/08/22/mailin-voting-civil-war-election-conspiracy-lincoln/
3

1796 Case 2:20-cv-01771-PP Filed 12/08/20 Page 19 of 92 Document 72-2

13
37.
Absentee and mail-in voting are the
primary opportunities for unlawful ballots to be cast.
As a result of expanded absentee and mail-in voting
in Defendant States, combined with Defendant States’
unconstitutional modification of statutory protections
designed to ensure ballot integrity, Defendant States
created a massive opportunity for fraud. In addition,
the Defendant States have made it difficult or
impossible to separate the constitutionally tainted
mail-in ballots from all mail-in ballots.
38.
Rather than augment safeguards
against illegal voting in anticipation of the millions of
additional mail-in ballots flooding their States,
Defendant States all materially weakened, or did
away with, security measures, such as witness or
signature verification procedures, required by their
respective legislatures. Their legislatures established
those commonsense safeguards to prevent—or at least
reduce—fraudulent mail-in ballots.
39.
Significantly, in Defendant States,
Democrat voters voted by mail at two to three times
the rate of Republicans. Former Vice President Biden
thus greatly benefited from this unconstitutional
usurpation of legislative authority, and the
weakening of legislative mandated ballot security
measures.
40.
The outcome of the Electoral College vote
is directly affected by the constitutional violations
committed by Defendant States. Plaintiff State
complied with the Constitution in the process of
appointing presidential electors for President Trump.
Defendant States violated the Constitution in the
process of appointing presidential electors by
unlawfully abrogating state election laws designed to

1797 Case 2:20-cv-01771-PP Filed 12/08/20 Page 20 of 92 Document 72-2

14
protect the integrity of the ballots and the electoral
process, and those violations proximately caused the
appointment of presidential electors for former Vice
President Biden. Plaintiff State will therefore be
injured if Defendant States’ unlawfully certify these
presidential electors.
Commonwealth of Pennsylvania
41.
Pennsylvania has 20 electoral votes,
with a statewide vote tally currently estimated at
3,363,951 for President Trump and 3,445,548 for
former Vice President Biden, a margin of 81,597 votes.
42.
The number of votes affected by the
various constitutional violations exceeds the margin
of votes separating the candidates.
43.
Pennsylvania’s Secretary of State, Kathy
Boockvar, without legislative approval, unilaterally
abrogated several Pennsylvania statutes requiring
signature verification for absentee or mail-in ballots.
Pennsylvania’s legislature has not ratified these
changes, and the legislation did not include a
severability clause.
44.
On August 7, 2020, the League of Women
Voters of Pennsylvania and others filed a complaint
against Secretary Boockvar and other local election
officials, seeking “a declaratory judgment that
Pennsylvania
existing
signature
verification
procedures for mail-in voting” were unlawful for a
number of reasons. League of Women Voters of
Pennsylvania v. Boockvar, No. 2:20-cv-03850-PBT,
(E.D. Pa. Aug. 7, 2020).
45.
The Pennsylvania Department of State
quickly settled with the plaintiffs, issuing revised
guidance on September 11, 2020, stating in relevant
part: “The Pennsylvania Election Code does not

1798 Case 2:20-cv-01771-PP Filed 12/08/20 Page 21 of 92 Document 72-2

15
authorize the county board of elections to set aside
returned absentee or mail-in ballots based solely on
signature analysis by the county board of elections.”
46.
This
guidance
is
contrary
to
Pennsylvania law. First, Pennsylvania Election Code
mandates that, for non-disabled and non-military
voters, all applications for an absentee or mail-in
ballot “shall be signed by the applicant.” 25 PA. STAT.
§§ 3146.2(d) & 3150.12(c). Second, Pennsylvania’s
voter signature verification requirements are
expressly set forth at 25 PA. STAT. 350(a.3)(1)-(2) and
§ 3146.8(g)(3)-(7).
47.
The Pennsylvania Department of State’s
guidance
unconstitutionally
did
away
with
Pennsylvania’s statutory signature verification
requirements. Approximately 70 percent of the
requests for absentee ballots were from Democrats
and 25 percent from Republicans. Thus, this
unconstitutional abrogation of state election law
greatly inured to former Vice President Biden’s
benefit.
48.
In addition, in 2019, Pennsylvania’s
legislature enacted bipartisan election reforms, 2019
Pa. Legis. Serv. Act 2019-77, that set inter alia a
deadline of 8:00 p.m. on election day for a county
board of elections to receive a mail-in ballot. 25 PA.
STAT. §§ 3146.6(c), 3150.16(c). Acting under a
generally worded clause that “Elections shall be free
and equal,” PA. CONST. art. I, § 5, cl. 1, a 4-3 majority
of Pennsylvania’s Supreme Court in Pa. Democratic
Party v. Boockvar, 238 A.3d 345 (Pa. 2020), extended
that deadline to three days after Election Day and
adopted a presumption that even non-postmarked
ballots were presumptively timely.

1799 Case 2:20-cv-01771-PP Filed 12/08/20 Page 22 of 92 Document 72-2

16
49.
Pennsylvania’s election law also requires
that poll-watchers be granted access to the opening,
counting, and recording of absentee ballots: “Watchers
shall be permitted to be present when the envelopes
containing official absentee ballots and mail-in ballots
are opened and when such ballots are counted and
recorded.” 25 PA. STAT. § 3146.8(b). Local election
officials in Philadelphia and Allegheny Counties
decided not to follow 25 PA. STAT. § 3146.8(b) for the
opening, counting, and recording of absentee and
mail-in ballots.
50.
Prior to the election, Secretary Boockvar
sent an email to local election officials urging them to
provide opportunities for various persons—including
political parties—to contact voters to “cure” defective
mail-in ballots. This process clearly violated several
provisions of the state election code.
• Section 3146.8(a) requires: “The county boards of
election, upon receipt of official absentee ballots in
sealed official absentee ballot envelopes as
provided under this article and mail-in ballots as
in sealed official mail-in ballot envelopes as
provided under Article XIII-D,1 shall safely keep
the ballots in sealed or locked containers until
they are to be canvassed by the county board of
elections.”
• Section 3146.8(g)(1)(ii) provides that mail-in
ballots shall be canvassed (if they are received by
eight o’clock p.m. on election day) in the manner
prescribed by this subsection.
• Section 3146.8(g)(1.1) provides that the first look
at the ballots shall be “no earlier than seven
o’clock a.m. on election day.” And the hour for this
“pre-canvas” must be publicly announced at least

1800 Case 2:20-cv-01771-PP Filed 12/08/20 Page 23 of 92 Document 72-2

17
48 hours in advance. Then the votes are counted
on election day.
51.
By removing the ballots for examination
prior to seven o’clock a.m. on election day, Secretary
Boockvar created a system whereby local officials
could
review
ballots
without
the
proper
announcements, observation, and security. This
entire scheme, which was only followed in Democrat
majority counties, was blatantly illegal in that it
permitted the illegal removal of ballots from their
locked containers prematurely.
52.
Statewide election officials and local
election officials in Philadelphia and Allegheny
Counties, aware of the historical Democrat advantage
in those counties, violated Pennsylvania’s election
code and adopted the differential standards favoring
voters in Philadelphia and Allegheny Counties with
the intent to favor former Vice President Biden. See
Verified Complaint (Doc. No. 1), Donald J. Trump for
President, Inc. v. Boockvar, 4:20-cv-02078-MWB (M.D.
Pa. Nov. 18, 2020) at ¶¶ 3-6, 9, 11, 100-143.
53.
Absentee and mail-in ballots in
Pennsylvania were thus evaluated under an illegal
standard regarding signature verification. It is now
impossible to determine which ballots were properly
cast and which ballots were not.
54.
The changed process allowing the curing
of absentee and mail-in ballots in Allegheny and
Philadelphia counties is a separate basis resulting in
an unknown number of ballots being treated in an
unconstitutional
manner
inconsistent
with
Pennsylvania statute. Id.
55.
In addition, a great number of ballots
were received after the statutory deadline and yet

1801 Case 2:20-cv-01771-PP Filed 12/08/20 Page 24 of 92 Document 72-2

18
were counted by virtue of the fact that Pennsylvania
did not segregate all ballots received after 8:00 pm on
November 3, 2020. Boockvar’s claim that only about
10,000 ballots were received after this deadline has no
way of being proven since Pennsylvania broke its
promise to the Court to segregate ballots and comingled perhaps tens, or even hundreds of thousands,
of illegal late ballots.
56.
On December 4, 2020, fifteen members of
the Pennsylvania House of Representatives led by
Rep. Francis X. Ryan issued a report to Congressman
Scott Perry (the “Ryan Report,” App. 139a-144a)
stating that “[t]he general election of 2020 in
Pennsylvania was fraught with inconsistencies,
documented
irregularities
and
improprieties
associated with mail-in balloting, pre-canvassing, and
canvassing that the reliability of the mail-in votes in
the Commonwealth of Pennsylvania is impossible to
rely upon.”
57.
The Ryan Report’s findings are startling,
including:
•

Ballots with NO MAILED date. That total is
9,005.
• Ballots Returned on or BEFORE the Mailed
Date. That total is 58,221.
•
Ballots Returned one day after Mailed Date.
That total is 51,200.
Id. 143a.
58.
These nonsensical numbers alone total
118,426 ballots and exceed Mr. Biden’s margin of
81,660 votes over President Trump. But these
discrepancies pale in comparison to the discrepancies
in Pennsylvania’s reported data concerning the

1802 Case 2:20-cv-01771-PP Filed 12/08/20 Page 25 of 92 Document 72-2

19
number of mail-in ballots distributed to the
populace—now with no longer subject to legislated
mandated signature verification requirements.
59.
The Ryan Report also states as follows:
[I]n a data file received on November 4, 2020, the
Commonwealth’s PA Open Data sites reported over
3.1 million mail in ballots sent out. The CSV file
from the state on November 4 depicts 3.1 million
mail in ballots sent out but on November 2, the
information was provided that only 2.7 million
ballots had been sent out. This discrepancy of
approximately 400,000 ballots from November 2 to
November 4 has not been explained.
Id. at 143a-44a. (Emphasis added).
60.
These stunning figures illustrate the
out-of-control nature of Pennsylvania’s mail-in
balloting scheme. Democrats submitted mail-in
ballots at more than two times the rate of
Republicans. This number of constitutionally tainted
ballots far exceeds the approximately 81,660 votes
separating the candidates.
61.
This blatant disregard of statutory law
renders all mail-in ballots constitutionally tainted
and cannot form the basis for appointing or certifying
Pennsylvania’s presidential electors to the Electoral
College.
62.
According to the U.S. Election
Assistance Commission’s report to Congress Election
Administration
and
Voting
Survey:
2016
Comprehensive Report, in 2016 Pennsylvania received
266,208 mail-in ballots; 2,534 of them were rejected
(.95%). Id. at p. 24. However, in 2020, Pennsylvania
received more than 10 times the number of mail-in
ballots compared to 2016. As explained supra, this

1803 Case 2:20-cv-01771-PP Filed 12/08/20 Page 26 of 92 Document 72-2

20
much larger volume of mail-in ballots was treated in
an unconstitutionally modified manner that included:
(1) doing away with the Pennsylvania’s signature
verification requirements; (2) extending that deadline
to three days after Election Day and adopting a
presumption that even non-postmarked ballots were
presumptively timely; and (3) blocking poll watchers
in Philadelphia and Allegheny Counties in violation of
State law.
63.
These non-legislative modifications to
Pennsylvania’s election rules appear to have
generated an outcome-determinative number of
unlawful ballots that were cast in Pennsylvania.
Regardless of the number of such ballots, the nonlegislative changes to the election rules violated the
Electors Clause.
State of Georgia
64.
Georgia has 16 electoral votes, with a
statewide vote tally currently estimated at 2,458,121
for President Trump and 2,472,098 for former Vice
President Biden, a margin of approximately 12,670
votes.
65.
The number of votes affected by the
various constitutional violations exceeds the margin
of votes dividing the candidates.
66.
Georgia’s Secretary of State, Brad
Raffensperger,
without
legislative
approval,
unilaterally abrogated Georgia’s statute governing
the signature verification process for absentee ballots.
67.
O.C.G.A. § 21-2-386(a)(2) prohibits the
opening of absentee ballots until after the polls open
on Election Day: In April 2020, however, the State
Election Board adopted Secretary of State Rule 183-114-0.9-.15, Processing Ballots Prior to Election Day.

1804 Case 2:20-cv-01771-PP Filed 12/08/20 Page 27 of 92 Document 72-2

21
That rule purports to authorize county election
officials to begin processing absentee ballots up to
three weeks before Election Day.
68.
Georgia law authorizes and requires a
single registrar or clerk—after reviewing the outer
envelope—to reject an absentee ballot if the voter
failed to sign the required oath or to provide the
required information, the signature appears invalid,
or the required information does not conform with the
information on file, or if the voter is otherwise found
ineligible to vote. O.C.G.A. § 21-2-386(a)(1)(B)-(C).
69.
Georgia law provides absentee voters the
chance to “cure a failure to sign the oath, an invalid
signature, or missing information” on a ballot’s outer
envelope by the deadline for verifying provisional
ballots (i.e., three days after the election). O.C.G.A. §§
21-2-386(a)(1)(C), 21-2-419(c)(2). To facilitate cures,
Georgia law requires the relevant election official to
notify the voter in writing: “The board of registrars or
absentee ballot clerk shall promptly notify the elector
of such rejection, a copy of which notification shall be
retained in the files of the board of registrars or
absentee ballot clerk for at least two years.” O.C.G.A.
§ 21-2-386(a)(1)(B).
70.
On March 6, 2020, in Democratic Party
of Georgia v. Raffensperger, No. 1:19-cv-5028-WMR
(N.D. Ga.), Georgia’s Secretary of State entered a
Compromise Settlement Agreement and Release with
the Democratic Party of Georgia (the “Settlement”) to
materially change the statutory requirements for
reviewing signatures on absentee ballot envelopes to
confirm the voter’s identity by making it far more
difficult to challenge defective signatures beyond the

1805 Case 2:20-cv-01771-PP Filed 12/08/20 Page 28 of 92 Document 72-2

22
express mandatory procedures set forth at GA. CODE §
21-2-386(a)(1)(B).
71.
Among other things, before a ballot could
be rejected, the Settlement required a registrar who
found a defective signature to now seek a review by
two other registrars, and only if a majority of the
registrars agreed that the signature was defective
could the ballot be rejected but not before all three
registrars’ names were written on the ballot envelope
along with the reason for the rejection. These
cumbersome procedures are in direct conflict with
Georgia’s statutory requirements, as is the
Settlement’s requirement that notice be provided by
telephone (i.e., not in writing) if a telephone number
is available. Finally, the Settlement purports to
require State election officials to consider issuing
guidance and training materials drafted by an expert
retained by the Democratic Party of Georgia.
72.
Georgia’s legislature has not ratified
these material changes to statutory law mandated by
the Compromise Settlement Agreement and Release,
including altered signature verification requirements
and early opening of ballots. The relevant legislation
that was violated by Compromise Settlement
Agreement and Release did not include a severability
clause.
73.
This unconstitutional change in Georgia
law materially benefitted former Vice President
Biden. According to the Georgia Secretary of State’s
office, former Vice President Biden had almost double
the number of absentee votes (65.32%) as President
Trump (34.68%). See Cicchetti Decl. at ¶ 25, App. 7a8a.

1806 Case 2:20-cv-01771-PP Filed 12/08/20 Page 29 of 92 Document 72-2

23
74.
The effect of this unconstitutional
change in Georgia election law, which made it more
likely that ballots without matching signatures would
be counted, had a material impact on the outcome of
the election.
75.
Specifically, there were 1,305,659
absentee mail-in ballots submitted in Georgia in 2020.
There were 4,786 absentee ballots rejected in 2020.
This is a rejection rate of .37%. In contrast, in 2016,
the 2016 rejection rate was 6.42% with 13,677
absentee mail-in ballots being rejected out of 213,033
submitted, which more than seventeen times greater
than in 2020. See Cicchetti Decl. at ¶ 24, App. 7a.
76.
If the rejection rate of mailed-in absentee
ballots remained the same in 2020 as it was in 2016,
there would be 83,517 less tabulated ballots in 2020.
The statewide split of absentee ballots was 34.68% for
Trump and 65.2% for Biden. Rejecting at the higher
2016 rate with the 2020 split between Trump and
Biden would decrease Trump votes by 28,965 and
Biden votes by 54,552, which would be a net gain for
Trump of 25,587 votes. This would be more than
needed to overcome the Biden advantage of 12,670
votes, and Trump would win by 12,917 votes. Id.
Regardless of the number of ballots affected, however,
the non-legislative changes to the election rules
violated the Electors Clause.
State of Michigan
77.
Michigan has 16 electoral votes, with a
statewide vote tally currently estimated at 2,650,695
for President Trump and 2,796,702 for former Vice
President Biden, a margin of 146,007 votes. In Wayne
County, Mr. Biden’s margin (322,925 votes)
significantly exceeds his statewide lead.

1807 Case 2:20-cv-01771-PP Filed 12/08/20 Page 30 of 92 Document 72-2

24
78.
The number of votes affected by the
various constitutional violations exceeds the margin
of votes dividing the candidates.
79.
Michigan’s Secretary of State, Jocelyn
Benson, without legislative approval, unilaterally
abrogated Michigan election statutes related to
absentee
ballot
applications
and
signature
verification. Michigan’s legislature has not ratified
these changes, and its election laws do not include a
severability clause.
80.
As amended in 2018, the Michigan
Constitution provides all registered voters the right to
request and vote by an absentee ballot without giving
a reason. MICH. CONST. art. 2, § 4.
81.
On May 19, 2020, however, Secretary
Benson announced that her office would send
unsolicited absentee-voter ballot applications by mail
to all 7.7 million registered Michigan voters prior to
the primary and general elections. Although her office
repeatedly encouraged voters to vote absentee
because of the COVID-19 pandemic, it did not ensure
that Michigan’s election systems and procedures were
adequate to ensure the accuracy and legality of the
historic flood of mail-in votes. In fact, it did the
opposite and did away with protections designed to
deter voter fraud.
82.
Secretary Benson’s flooding of Michigan
with millions of absentee ballot applications prior to
the 2020 general election violated M.C.L. § 168.759(3).
That statute limits the procedures for requesting an
absentee ballot to three specified ways:
An application for an absent voter ballot under this
section may be made in any of the following ways:
(a) By a written request signed by the voter.

1808 Case 2:20-cv-01771-PP Filed 12/08/20 Page 31 of 92 Document 72-2

25
(b) On an absent voter ballot application form
provided for that purpose by the clerk of the city or
township.
(c) On a federal postcard application.
M.C.L. § 168.759(3) (emphasis added).
83.
The Michigan Legislature thus declined
to include the Secretary of State as a means for
distributing absentee ballot applications. Id. §
168.759(3)(b). Under the statute’s plain language, the
Legislature explicitly gave only local clerks the power
to distribute absentee voter ballot applications. Id.
84.
Because the Legislature declined to
explicitly include the Secretary of State as a vehicle
for distributing absentee ballots applications,
Secretary Benson lacked authority to distribute even
a single absentee voter ballot application—much less
the millions of absentee ballot applications Secretary
Benson chose to flood across Michigan.
85.
Secretary Benson also violated Michigan
law when she launched a program in June 2020
allowing absentee ballots to be requested online,
without signature verification as expressly required
under Michigan law. The Michigan Legislature did
not approve or authorize Secretary Benson’s
unilateral actions.
86.
MCL § 168.759(4) states in relevant part:
“An applicant for an absent voter ballot shall sign the
application. Subject to section 761(2), a clerk or
assistant clerk shall not deliver an absent voter ballot
to an applicant who does not sign the application.”
87.
Further, MCL § 168.761(2) states in
relevant part: “The qualified voter file must be used to
determine the genuineness of a signature on an
application for an absent voter ballot”, and if “the

1809 Case 2:20-cv-01771-PP Filed 12/08/20 Page 32 of 92 Document 72-2

26
signatures do not agree sufficiently or [if] the
signature is missing” the ballot must be rejected.
88.
In 2016 only 587,618 Michigan voters
requested absentee ballots. In stark contrast, in 2020,
3.2 million votes were cast by absentee ballot, about
57% of total votes cast – and more than five times the
number of ballots even requested in 2016.
89.
Secretary Benson’s unconstitutional
modifications of Michigan’s election rules resulted in
the distribution of millions of absentee ballot
applications without verifying voter signatures as
required by MCL §§ 168.759(4) and 168.761(2). This
means that millions of absentee ballots were
disseminated in violation of Michigan’s statutory
signature-verification requirements. Democrats in
Michigan voted by mail at a ratio of approximately
two to one compared to Republican voters. Thus,
former Vice President Biden materially benefited
from these unconstitutional changes to Michigan’s
election law.
90.
Michigan also requires that poll
watchers and inspectors have access to vote counting
and canvassing. M.C.L. §§ 168.674-.675.
91.
Local election officials in Wayne County
made a conscious and express policy decision not to
follow M.C.L. §§ 168.674-.675 for the opening,
counting, and recording of absentee ballots.
92.
Michigan also has strict signature
verification requirements for absentee ballots,
including that the Elections Department place a
written statement or stamp on each ballot envelope
where the voter signature is placed, indicating that
the voter signature was in fact checked and verified

1810 Case 2:20-cv-01771-PP Filed 12/08/20 Page 33 of 92 Document 72-2

27
with the signature on file with the State. See MCL §
168.765a(6).
93.
However, Wayne County made the policy
decision to ignore Michigan’s statutory signatureverification requirements for absentee ballots. Former
Vice President Biden received approximately 587,074,
or 68%, of the votes cast there compared to President
Trump’s receiving approximate 264,149, or 30.59%, of
the total vote. Thus, Mr. Biden materially benefited
from these unconstitutional changes to Michigan’s
election law.
94.
Numerous poll challengers and an
Election Department employee whistleblower have
testified that the signature verification requirement
was ignored in Wayne County in a case currently
pending in the Michigan Supreme Court.4 For
example, Jesse Jacob, a decades-long City of Detroit
employee assigned to work in the Elections Department for
the 2020 election testified that:
Absentee ballots that were received in the mail would
have the voter’s signature on the envelope. While I
was at the TCF Center, I was instructed not to look at
any of the signatures on the absentee ballots, and I
was instructed not to compare the signature on the
absentee ballot with the signature on file.5

Johnson v. Benson, Petition for Extraordinary Writs &
Declaratory Relief filed Nov. 26, 2020 (Mich. Sup. Ct.) at ¶¶ 71,
138-39, App. 25a-51a.
4

Id., Affidavit of Jessy Jacob, Appendix 14 at ¶15, attached at
App. 34a-36a.
5

1811 Case 2:20-cv-01771-PP Filed 12/08/20 Page 34 of 92 Document 72-2

28
95.
The TCF was the only facility within
Wayne County authorized to count ballots for the City
of Detroit.
96.
These non-legislative modifications to
Michigan’s election statutes resulted in a number of
constitutionally tainted votes that far exceeds the
margin of voters separating the candidates in
Michigan.
97.
Additional public information confirms
the material adverse impact on the integrity of the
vote in Wayne County caused by these
unconstitutional changes to Michigan’s election law.
For example, the Wayne County Statement of Votes
Report lists 174,384 absentee ballots out of 566,694
absentee ballots tabulated (about 30.8%) as counted
without a registration number for precincts in the
City of Detroit. See Cicchetti Decl. at ¶ 27, App. 8a.
The number of votes not tied to a registered voter by
itself exceeds Vice President Biden’s margin of margin
of 146,007 votes by more than 28,377 votes.
98.
The extra ballots cast most likely
resulted from the phenomenon of Wayne County
election workers running the same ballots through a
tabulator multiple times, with Republican poll
watchers obstructed or denied access, and election
officials ignoring poll watchers’ challenges, as
documented by numerous declarations. App. 25a-51a.
99.
In addition, a member of the Wayne
County Board of Canvassers (“Canvassers Board”),
William Hartman, determined that 71% of Detroit’s
Absent Voter Counting Boards (“AVCBs”) were
unbalanced—i.e., the number of people who checked
in did not match the number of ballots cast—without
explanation. Id. at ¶ 29.

1812 Case 2:20-cv-01771-PP Filed 12/08/20 Page 35 of 92 Document 72-2

29
100. On November 17, 2020, the Canvassers
Board deadlocked 2-2 over whether to certify the
results of the presidential election based on numerous
reports of fraud and unanswered material
discrepancies in the county-wide election results. A
few hours later, the Republican Board members
reversed their decision and voted to certify the results
after severe harassment, including threats of violence.
101. The following day, the two Republican
members of the Board rescinded their votes to certify
the vote and signed affidavits alleging they were
bullied and misled into approving election results and
do not believe the votes should be certified until
serious irregularities in Detroit votes are resolved. See
Cicchetti Decl. at ¶ 29, App. 8a.
102. Regardless of the number of votes that
were affected by the unconstitutional modification of
Michigan’s election rules, the non-legislative changes
to the election rules violated the Electors Clause.
State of Wisconsin
103. Wisconsin has 10 electoral votes, with a
statewide vote tally currently estimated at 1,610,151
for President Trump and 1,630,716 for former Vice
President Biden (i.e., a margin of 20,565 votes). In two
counties, Milwaukee and Dane, Mr. Biden’s margin
(364,298 votes) significantly exceeds his statewide
lead.
104. In the 2016 general election some
146,932 mail-in ballots were returned in Wisconsin
out of more than 3 million votes cast.6 In stark
contrast, 1,275,019 mail-in ballots, nearly a 900
Source:
U.S.
Elections
Project,
http://www.electproject.org/early_2016.
6

available

at:

1813 Case 2:20-cv-01771-PP Filed 12/08/20 Page 36 of 92 Document 72-2

30
percent increase over 2016, were returned in the
November 3, 2020 election.7
105. Wisconsin statutes guard against fraud
in absentee ballots: “[V]oting by absentee ballot is a
privilege exercised wholly outside the traditional
safeguards of the polling place. The legislature finds
that the privilege of voting by absentee ballot must be
carefully regulated to prevent the potential for fraud
or abuse[.]” WISC. STAT. § 6.84(1).
106. In direct contravention of Wisconsin law,
leading up to the 2020 general election, the Wisconsin
Elections Commission (“WEC”) and other local
officials unconstitutionally modified Wisconsin
election laws—each time taking steps that weakened,
or did away with, established security procedures put
in place by the Wisconsin legislature to ensure
absentee ballot integrity.
107. For example, the WEC undertook a
campaign to position hundreds of drop boxes to collect
absentee ballots—including the use of unmanned drop
boxes.8
108. The mayors of Wisconsin’s five largest
cities—Green Bay, Kenosha, Madison, Milwaukee,
and Racine, which all have Democrat majorities—
joined in this effort, and together, developed a plan
use purportedly “secure drop-boxes to facilitate return

Source:
U.S.
Elections
Project,
available
at:
https://electproject.github.io/Early-Vote-2020G/WI.html.
8
Wisconsin Elections Commission Memoranda, To: All
Wisconsin Election Officials, Aug. 19, 2020, available at:
https://elections.wi.gov/sites/elections.wi.gov/files/202008/Drop%20Box%20Final.pdf. at p. 3 of 4.
7

1814 Case 2:20-cv-01771-PP Filed 12/08/20 Page 37 of 92 Document 72-2

31
of absentee ballots.” Wisconsin Safe Voting Plan 2020,
at 4 (June 15, 2020).9
109. It is alleged in an action recently filed in
the United States District Court for the Eastern
District of Wisconsin that over five hundred
unmanned, illegal, absentee ballot drop boxes were
used in the Presidential election in Wisconsin.10
110. However, the use of any drop box,
manned or unmanned, is directly prohibited by
Wisconsin statute. The Wisconsin legislature
specifically described in the Election Code “Alternate
absentee ballot site[s]” and detailed the procedure by
which the governing body of a municipality may
designate a site or sites for the delivery of absentee
ballots “other than the office of the municipal clerk or
board of election commissioners as the location from
which electors of the municipality may request and
vote absentee ballots and to which voted absentee
ballots shall be returned by electors for any election.”
Wis. Stat. 6.855(1).
111. Any alternate absentee ballot site “shall
be staffed by the municipal clerk or the executive
director of the board of election commissioners, or
employees of the clerk or the board of election
commissioners.” Wis. Stat. 6.855(3). Likewise, Wis.
Wisconsin Safe Voting Plan 2020 Submitted to the Center
for Tech & Civic Life, June 15, 2020, by the Mayors of Madison,
Milwaukee, Racine, Kenosha and Green Bay available at:
https://www.techandciviclife.org/wpcontent/uploads/2020/07/Approved-Wisconsin-Safe-Voting-Plan2020.pdf.
10
See Complaint (Doc. No. 1), Donald J. Trump, Candidate for
President of the United States of America v. The Wisconsin
Election Commission, Case 2:20-cv-01785-BHL (E.D. Wisc. Dec.
2, 2020) (Wisconsin Trump Campaign Complaint”) at ¶¶ 188-89.
9

1815 Case 2:20-cv-01771-PP Filed 12/08/20 Page 38 of 92 Document 72-2

32
Stat. 7.15(2m) provides, “[i]n a municipality in which
the governing body has elected to an establish an
alternate absentee ballot sit under s. 6.855, the
municipal clerk shall operate such site as though it
were his or her office for absentee ballot purposes and
shall ensure that such site is adequately staffed.”
112. Thus, the unmanned absentee ballot
drop-off sites are prohibited by the Wisconsin
Legislature as they do not comply with Wisconsin law
expressly defining “[a]lternate absentee ballot site[s]”.
Wis. Stat. 6.855(1), (3).
113. In addition, the use of drop boxes for the
collection
of
absentee
ballots,
positioned
predominantly in Wisconsin’s largest cities, is directly
contrary to Wisconsin law providing that absentee
ballots may only be “mailed by the elector, or delivered
in person to the municipal clerk issuing the ballot or
ballots.” Wis. Stat. § 6.87(4)(b)1 (emphasis added).
114. The fact that other methods of delivering
absentee ballots, such as through unmanned drop
boxes, are not permitted is underscored by Wis. Stat.
§ 6.87(6) which mandates that, “[a]ny ballot not
mailed or delivered as provided in this subsection may
not be counted.” Likewise, Wis. Stat. § 6.84(2)
underscores this point, providing that Wis. Stat. §
6.87(6) “shall be construed as mandatory.” The
provision continues—“Ballots cast in contravention of
the procedures specified in those provisions may not
be counted. Ballots counted in contravention of the
procedures specified in those provisions may not be
included in the certified result of any election.” Wis.
Stat. § 6.84(2) (emphasis added).
115. These were not the only Wisconsin
election laws that the WEC violated in the 2020

1816 Case 2:20-cv-01771-PP Filed 12/08/20 Page 39 of 92 Document 72-2

33
general election. The WEC and local election officials
also took it upon themselves to encourage voters to
unlawfully
declare
themselves
“indefinitely
confined”—which under Wisconsin law allows the
voter to avoid security measures like signature
verification and photo ID requirements.
116. Specifically, registering to vote by
absentee ballot requires photo identification, except
for those who register as “indefinitely confined” or
“hospitalized.” WISC. STAT. § 6.86(2)(a), (3)(a).
Registering for indefinite confinement requires
certifying confinement “because of age, physical
illness or infirmity or [because the voter] is disabled
for an indefinite period.” Id. § 6.86(2)(a). Should
indefinite confinement cease, the voter must notify
the county clerk, id., who must remove the voter from
indefinite-confinement status. Id. § 6.86(2)(b).
117. Wisconsin election procedures for voting
absentee based on indefinite confinement enable the
voter to avoid the photo ID requirement and signature
requirement. Id. § 6.86(1)(ag)/(3)(a)(2).
118. On March 25, 2020, in clear violation of
Wisconsin law, Dane County Clerk Scott McDonnell
and Milwaukee County Clerk George Christensen
both issued guidance indicating that all voters should
mark themselves as “indefinitely confined” because of
the COVID-19 pandemic.
119. Believing this to be an attempt to
circumvent Wisconsin’s strict voter ID laws, the
Republican Party of Wisconsin petitioned the
Wisconsin Supreme Court to intervene. On March 31,
2020, the Wisconsin Supreme Court unanimously
confirmed that the clerks’ “advice was legally
incorrect” and potentially dangerous because “voters

1817 Case 2:20-cv-01771-PP Filed 12/08/20 Page 40 of 92 Document 72-2

34
may be misled to exercise their right to vote in ways
that are inconsistent with WISC. STAT. § 6.86(2).”
120. On May 13, 2020, the Administrator of
WEC issued a directive to the Wisconsin clerks
prohibiting removal of voters from the registry for
indefinite-confinement status if the voter is no longer
“indefinitely confined.”
121. The WEC’s directive violated Wisconsin
law. Specifically, WISC. STAT. § 6.86(2)(a) specifically
provides that “any [indefinitely confined] elector [who]
is no longer indefinitely confined … shall so notify the
municipal clerk.” WISC. STAT. § 6.86(2)(b) further
provides that the municipal clerk “shall remove the
name of any other elector from the list upon request
of the elector or upon receipt of reliable information
that an elector no longer qualifies for the service.”
122. According to statistics kept by the WEC,
nearly 216,000 voters said they were indefinitely
confined in the 2020 election, nearly a fourfold
increase from nearly 57,000 voters in 2016. In Dane
and Milwaukee counties, more than 68,000 voters
said they were indefinitely confined in 2020, a fourfold
increase from the roughly 17,000 indefinitely confined
voters in those counties in 2016.
123. Under Wisconsin law, voting by absentee
ballot also requires voters to complete a certification,
including their address, and have the envelope
witnessed by an adult who also must sign and indicate
their address on the envelope. See WISC. STAT. § 6.87.
The sole remedy to cure an “improperly completed
certificate or [ballot] with no certificate” is for “the
clerk [to] return the ballot to the elector[.]” Id. §
6.87(9). “If a certificate is missing the address of a

1818 Case 2:20-cv-01771-PP Filed 12/08/20 Page 41 of 92 Document 72-2

35
witness, the ballot may not be counted.” Id. § 6.87(6d)
(emphasis added).
124. However, in a training video issued April
1, 2020, the Administrator of the City of Milwaukee
Elections Commission unilaterally declared that a
“witness address may be written in red and that is
because we were able to locate the witnesses’ address
for the voter” to add an address missing from the
certifications on absentee ballots. The Administrator’s
instruction violated WISC. STAT. § 6.87(6d). The WEC
issued similar guidance on October 19, 2020, in
violation of this statute as well.
125. In the Wisconsin Trump Campaign
Complaint, it is alleged, supported by the sworn
affidavits of poll watchers, that canvas workers
carried out this unlawful policy, and acting pursuant
to this guidance, in Milwaukee used red-ink pens to
alter the certificates on the absentee envelope and
then cast and count the absentee ballot. These acts
violated WISC. STAT. § 6.87(6d) (“If a certificate is
missing the address of a witness, the ballot may not
be counted”). See also WISC. STAT. § 6.87(9) (“If a
municipal clerk receives an absentee ballot with an
improperly completed certificate or with no certificate,
the clerk may return the ballot to the elector . . .
whenever time permits the elector to correct the defect
and return the ballot within the period authorized.”).
126. Wisconsin’s legislature has not ratified
these changes, and its election laws do not include a
severability clause.
127. In addition, Ethan J. Pease, a box truck
delivery driver subcontracted to the U.S. Postal
Service (“USPS”) to deliver truckloads of mail-in
ballots to the sorting center in Madison, WI, testified

1819 Case 2:20-cv-01771-PP Filed 12/08/20 Page 42 of 92 Document 72-2

36
that USPS employees were backdating ballots
received after November 3, 2020. Decl. of Ethan J.
Pease at ¶¶ 3-13. Further, Pease testified how a
senior USPS employee told him on November 4, 2020
that
“[a]n
order
came
down
from
the
Wisconsin/Illinois Chapter of the Postal Service that
100,000 ballots were missing” and how the USPS
dispatched employees to “find[] . . . the ballots.” Id. ¶¶
8-10. One hundred thousand ballots supposedly
“found” after election day would far exceed former
Vice President Biden margin of 20,565 votes over
President Trump.
COUNT I: ELECTORS CLAUSE
128. Plaintiff State repeats and re-alleges the
allegations above, as if fully set forth herein.
129. The Electors Clause of Article II, Section
1, Clause 2, of the Constitution makes clear that only
the legislatures of the States are permitted to
determine the rules for appointing presidential
electors. The pertinent rules here are the state
election statutes, specifically those relevant to the
presidential election.
130. Non-legislative actors lack authority to
amend or nullify election statutes. Bush II, 531 U.S.
at 104 (quoted supra).
131. Under Heckler v. Chaney, 470 U.S. 821,
833 n.4 (1985), conscious and express executive
policies—even if unwritten—to nullify statutes or to
abdicate statutory responsibilities are reviewable to
the same extent as if the policies had been written or
adopted. Thus, conscious and express actions by State
or local election officials to nullify or ignore
requirements of election statutes violate the Electors

1820 Case 2:20-cv-01771-PP Filed 12/08/20 Page 43 of 92 Document 72-2

37
Clause to the same extent as formal modifications by
judicial officers or State executive officers.
132. The actions set out in Paragraphs 41-128
constitute non-legislative changes to State election
law by executive-branch State election officials, or by
judicial officials, in Defendant States Pennsylvania,
Georgia, Michigan, and Wisconsin, in violation of the
Electors Clause.
133. Electors appointed to Electoral College
in violation of the Electors Clause cannot cast
constitutionally valid votes for the office of President.
COUNT II: EQUAL PROTECTION
134. Plaintiff State repeats and re-alleges the
allegations above, as if fully set forth herein.
135. The Equal Protection Clause prohibits
the use of differential standards in the treatment and
tabulation of ballots within a State. Bush II, 531 U.S.
at 107.
136. The one-person, one-vote principle
requires counting valid votes and not counting invalid
votes. Reynolds, 377 U.S. at 554-55; Bush II, 531 U.S.
at 103 (“the votes eligible for inclusion in the
certification are the votes meeting the properly
established legal requirements”).
137. The actions set out in Paragraphs 66-73
(Georgia), 80-93 (Michigan), 44-55 (Pennsylvania),
and 106-24 (Wisconsin) created differential voting
standards in Defendant States Pennsylvania,
Georgia, Michigan, and Wisconsin in violation of the
Equal Protection Clause.
138. The actions set out in Paragraphs 66-73
(Georgia), 80-93 (Michigan), 44-55 (Pennsylvania),
and 106-24 (Wisconsin) violated the one-person, one-

1821 Case 2:20-cv-01771-PP Filed 12/08/20 Page 44 of 92 Document 72-2

38
vote principle in Defendant States Pennsylvania,
Georgia, Michigan, and Wisconsin.
139. By the shared enterprise of the entire
nation electing the President and Vice President,
equal protection violations in one State can and do
adversely affect and diminish the weight of votes cast
in States that lawfully abide by the election structure
set forth in the Constitution. Plaintiff State is
therefore harmed by this unconstitutional conduct in
violation of the Equal Protection or Due Process
Clauses.
COUNT III: DUE PROCESS
140. Plaintiff State repeats and re-alleges the
allegations above, as if fully set forth herein.
141. When election practices reach “the point
of patent and fundamental unfairness,” the integrity
of the election itself violates substantive due process.
Griffin v. Burns, 570 F.2d 1065, 1077 (1st Cir. 1978);
Duncan v. Poythress, 657 F.2d 691, 702 (5th Cir.
1981); Florida State Conference of N.A.A.C.P. v.
Browning, 522 F.3d 1153, 1183-84 (11th Cir. 2008);
Roe v. State of Ala. By & Through Evans, 43 F.3d 574,
580-82 (11th Cir. 1995); Roe v. State of Ala., 68 F.3d
404, 407 (11th Cir. 1995); Marks v. Stinson, 19 F. 3d
873, 878 (3rd Cir. 1994).
142. Under this Court’s precedents on procedural due process, not only intentional failure to follow
election law as enacted by a State’s legislature but
also random and unauthorized acts by state election
officials and their designees in local government can
violate the Due Process Clause. Parratt v. Taylor, 451
U.S. 527, 537-41 (1981), overruled in part on other
grounds by Daniels v. Williams, 474 U.S. 327, 330-31
(1986); Hudson v. Palmer, 468 U.S. 517, 532 (1984).

1822 Case 2:20-cv-01771-PP Filed 12/08/20 Page 45 of 92 Document 72-2

39
The difference between intentional acts and random
and unauthorized acts is the degree of pre-deprivation
review.
143. Defendant
States
acted
unconstitutionally to lower their election standards—
including to allow invalid ballots to be counted and
valid ballots to not be counted—with the express
intent to favor their candidate for President and to
alter the outcome of the 2020 election. In many
instances these actions occurred in areas having a
history of election fraud.
144. The actions set out in Paragraphs 66-73
(Georgia), 80-93 (Michigan), 44-55 (Pennsylvania),
and 106-24 (Wisconsin) constitute intentional
violations of State election law by State election
officials and their designees in Defendant States
Pennsylvania, Georgia, Michigan, and Wisconsin, in
violation of the Due Process Clause.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff States respectfully
request that this Court issue the following relief:
A.
Declare
that
Defendant
States
Pennsylvania, Georgia, Michigan, and Wisconsin
administered the 2020 presidential election in
violation of the Electors Clause and the Fourteenth
Amendment of the U.S. Constitution.
B.
Declare that any electoral college votes
cast by such presidential electors appointed in
Defendant States Pennsylvania, Georgia, Michigan,
and Wisconsin are in violation of the Electors Clause
and the Fourteenth Amendment of the U.S.
Constitution and cannot be counted.

1823 Case 2:20-cv-01771-PP Filed 12/08/20 Page 46 of 92 Document 72-2

40
C.
Enjoin Defendant States’ use of the 2020
election results for the Office of President to appoint
presidential electors to the Electoral College.
D.
Enjoin Defendant States’ use of the 2020
election results for the Office of President to appoint
presidential electors to the Electoral College and
authorize, pursuant to the Court’s remedial authority,
the Defendant States to conduct a special election to
appoint presidential electors.
E.
If any of Defendant States have already
appointed presidential electors to the Electoral
College using the 2020 election results, direct such
States’ legislatures, pursuant to 3 U.S.C. § 2 and U.S.
CONST. art. II, § 1, cl. 2, to appoint a new set of
presidential electors in a manner that does not violate
the Electors Clause and the Fourteenth Amendment,
or to appoint no presidential electors at all.
F.
Enjoin the Defendant States from
certifying presidential electors or otherwise meeting
for purposes of the electoral college pursuant to 3
U.S.C. § 5, 3 U.S.C. § 7, or applicable law pending
further order of this Court.
G.
Award costs to Plaintiff State.
H.
Grant such other relief as the Court
deems just and proper.

1824 Case 2:20-cv-01771-PP Filed 12/08/20 Page 47 of 92 Document 72-2

December 7, 2020

41
Respectfully submitted,
Ken Paxton*
Attorney General of Texas
Brent Webster
First Assistant Attorney
General of Texas
Lawrence Joseph
Special Counsel to the
Attorney General of Texas
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kenneth.paxton@oag.texas.gov
(512) 936-1414
*

Counsel of Record

1825 Case 2:20-cv-01771-PP Filed 12/08/20 Page 48 of 92 Document 72-2

i
No. ______, Original

In the Supreme Court of the United States
STATE OF TEXAS,
Plaintiff,
v.
COMMONWEALTH OF PENNSYLVANIA, STATE OF
STATE OF GEORGIA, STATE OF MICHIGAN, AND
STATE OF WISCONSIN,
Defendants.
BRIEF IN SUPPORT OF MOTION FOR LEAVE
TO FILE BILL OF COMPLAINT
Ken Paxton*
Attorney General of Texas
Brent Webster
First Assistant Attorney
General of Texas
Lawrence Joseph
Special Counsel to the
Attorney General of Texas
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kenneth.paxton@oag.texas.gov
(512) 936-1414
*Counsel of Record

1826 Case 2:20-cv-01771-PP Filed 12/08/20 Page 49 of 92 Document 72-2

ii
TABLE OF CONTENTS
Pages
Table of Authorities................................................... iv
Brief in Support of Motion for Leave to File ............. 1
Statement of the Case ................................................ 1
Constitutional Background ................................. 4
Non-Legislative Changes Made in Violation
of the Electors Clause .................................... 5
Standard of Review .................................................... 6
Argument .................................................................... 7
I. This Court has jurisdiction over Plaintiff
States’ claims. ...................................................... 7
A. The claims fall within this Court’s
constitutional and statutory subjectmatter jurisdiction......................................... 7
B. The claims arise under the Constitution. ..... 8
C. The claims raise a “case or controversy”
between the States. ..................................... 11
1. Plaintiff States suffer an injury in
fact.
.................................................. 12
2. Defendant States caused the injuries. . 15
3. The requested relief would redress
the injuries. ........................................... 15
D. This action is not moot and will not
become moot................................................. 17
E. This matter is ripe for review. .................... 18
F. This action does not raise a nonjusticiable political question. ...................... 19
G. No adequate alternate remedy or forum
exists. ........................................................... 20

1827 Case 2:20-cv-01771-PP Filed 12/08/20 Page 50 of 92 Document 72-2

iii
II. This case presents constitutional questions of
immense national consequence that warrant
this Court’s discretionary review. ..................... 22
A. The 2020 election suffered from serious
irregularities that constitutionally
prohibit using the reported results. ............ 24
1. Defendant States violated the
Electors Clause by modifying their
legislatures’ election laws through
non-legislative action. ........................... 25
2. State and local administrator’s
systemic failure to follow State
election qualifies as an unlawful
amendment of State law. ...................... 28
3. Defendant States’ administration of
the 2020 election violated the
Fourteenth Amendment. ...................... 29
B. A ruling on the 2020 election would
preserve the Constitution and help
prevent irregularities in future elections. .. 33
III. Review is not discretionary. .............................. 34
IV. This case warrants summary disposition or
expedited briefing. ............................................. 34
Conclusion ................................................................ 35

1828 Case 2:20-cv-01771-PP Filed 12/08/20 Page 51 of 92 Document 72-2

iv
TABLE OF AUTHORITIES
Pages
Cases
Anderson v. Celebrezze, 460 U.S. 780 (1983) ........... 11
Anderson v. United States, 417 U.S. 211 (1974) . 4, 12
Baer v. Meyer, 728 F.2d 471 (10th Cir. 1984).......... 29
Baker v. Carr, 369 U.S. 186 (1962) ......... 4, 12, 19-120
Barr v. Chatman, 397 F.2d 515 (7th Cir. 1968) ...... 29
Bell v. Hood, 327 U.S. 678 (1946) ............................ 10
Brown v. O’Brien, 469 F.2d 563 (D.C. Cir.) ............. 31
Burdick v. Takushi, 504 U.S. 428 (1992) ................ 26
Bush v. Gore, 531 U.S. 98 (2000) ...................... passim
Bush v. Palm Beach Cty. Canvassing Bd., 531
U.S. 70 (2000) ................................ 4, 10, 16, 21, 25
California v. United States, 457 U.S. 273 (1982) .... 35
City of Boerne v. Flores, 521 U.S. 507 (1997) .......... 16
City of Chicago v. Int’l Coll. of Surgeons, 522 U.S.
156 (1997) .............................................................. 9
Coleman v. Miller, 307 U.S. 433 (1939) ................... 14
Cook v. Gralike, 531 U.S. 510 (2001) ....................... 10
Crawford v. Marion County Election Bd.,
553 U.S. 181 (2008) ............................................... 6
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332
(2006) ................................................................... 15
Dep’t of Homeland Sec. v. New York, 140 S. Ct.
599 (2020) ............................................................ 27
Duke Power Co. v. Carolina Envtl. Study Group,
Inc., 438 U.S. 59 (1978) ....................................... 15
Duncan v. Poythress, 657 F.2d 691
(5th Cir. 1981) ..................................................... 31

1829 Case 2:20-cv-01771-PP Filed 12/08/20 Page 52 of 92 Document 72-2

v
Dunn v. Blumstein, 405 U.S. 330 (1972) ................. 12
FEC v. Akins, 524 U.S. 11 (1998) ............................ 17
FEC v. Wisconsin Right to Life, Inc., 551 U.S.
449 (2007) ............................................................ 18
Florida State Conference of N.A.A.C.P. v.
Browning, 522 F.3d 1153 (11th Cir. 2008) ......... 31
Foman v. Davis, 371 U.S. 178 (1962) ........................ 7
Foster v. Chatman, 136 S.Ct. 1737 (2016) ................. 8
Fox Film Corp. v. Muller, 296 U.S. 207 (1935) ......... 9
Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd., 561 U.S. 477 (2010) .................... 27
Gasser Chair Co. v. Infanti Chair Mfg. Corp.,
60 F.3d 770 (Fed. Cir. 1995) ............................... 19
Grayned v. City of Rockford,
408 U.S. 104 (1972) ............................................. 27
Griffin v. Burns, 570 F.2d 1065
(1st Cir. 1978) ...................................................... 31
Harris v. Conradi, 675 F.2d 1212
(11th Cir. 1982) ................................................... 29
Heckler v. Chaney, 470 U.S. 821 (1985)................... 28
Hernandez v. Mesa, 137 S.Ct. 2003 (2017) ................ 7
Hudson v. Palmer, 468 U.S. 517 (1984)................... 32
Hunter v. Hamilton Cty. Bd. of Elections,
635 F.3d 219 (6th Cir. 2011) ......................... 23, 32
Lance v. Coffman, 549 U.S. 437 (2007) ................... 13
Leser v. Garnett, 258 U.S. 130 (1922) ...................... 21
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) ............................................. 11
Lujan v. Nat’l Wildlife Fed’n,
497 U.S. 871 (1990) ............................................. 18

1830 Case 2:20-cv-01771-PP Filed 12/08/20 Page 53 of 92 Document 72-2

vi
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) .............................. 23
Marks v. Stinson, 19 F. 3d 873
(3rd Cir. 1994) ..................................................... 31
Maryland v. Louisiana,
451 U.S. 725 (1981) ............................................. 11
Massachusetts v. Environmental Protection
Agency, 549 U.S. 497 (2007) ............................... 13
McPherson v. Blacker, 146 U.S. 1 (1892)..... 16, 21, 25
Merrell Dow Pharm., Inc. v. Thompson,
478 U.S. 804 (1986) ............................................... 9
Mesa v. California, 489 U.S. 121 (1989) .................... 8
Mississippi v. Louisiana, 506 U.S. 73 (1992) ............ 7
Morton v. Ruiz, 415 U.S. 199 (1974) ................... 28-29
Mostyn v. Fabrigas, 98 Eng. Rep.
1021 (K.B. 1774) .................................................. 34
Nebraska v. Colorado,
136 S.Ct. 1034 (2016) .......................................... 34
New Jersey v. New York,
345 U.S. 369 (1953) ............................................. 14
New Mexico v. Colorado,
137 S.Ct. 2319 (2017) .......................................... 34
Norman v. Reed, 502 U.S. 279 (1992) ...................... 18
Parratt v. Taylor, 451 U.S. 527 (1981) ............... 31-32
Petrella v. MGM, 572 U.S. 663 (2014) ..................... 18
Profitness Physical Therapy Ctr. v. ProFit Orthopedic & Sports Physical Therapy
P.C., 314 F.3d 62 (2d Cir. 2002) ......................... 19
Purcell v. Gonzalez, 549 U.S. 1 (2006) ...... 5, 22, 27-28

1831 Case 2:20-cv-01771-PP Filed 12/08/20 Page 54 of 92 Document 72-2

vii
Republican Party of Pa. v. Boockvar,
No. 20-542, 2020 U.S. LEXIS 5188
(Oct. 28, 2020) ..................................................... 26
Reynolds v. Sims, 377 U.S. 533
(1964) ............................................... 2, 4, 11, 15, 21
Roe v. State of Ala. By & Through Evans,
43 F.3d 574 (11th Cir. 1995) ............................... 31
Roe v. State of Ala., 68 F.3d 404
(11th Cir. 1995) ................................................... 31
Roman Catholic Diocese of Brooklyn, New York
v. Cuomo, 592 U.S. ___ (Nov. 25, 2020)........ 25, 31
Rosario v. Rockefeller, 410 U.S. 752 (1973) ............. 25
Service v. Dulles, 354 U.S. 363 (1957) ..................... 29
South Carolina v. Katzenbach,
383 U.S. 301 (1966) ............................................. 25
Steel Co. v. Citizens for a Better Env’t.,
523 U.S. 83 (1998) ................................................. 7
Tashjian v. Republican Party,
479 U.S. 208 (1986) ............................................. 24
Texas v. United States,
523 U.S. 296 (1998) ............................................. 18
United States Term Limits v. Thornton,
514 U.S. 779 (1995) ............................................. 21
United States v. Nevada,
412 U.S. 534 (1973) ............................................. 20
Wesberry v. Sanders, 376 U.S. 1 (1964) ......... 1, 12, 22
What-A-Burger of Va., Inc. v. Whataburger, Inc.,
357 F.3d 441 (4th Cir. 2004) ............................... 19
Wisconsin State Legis., No. 20A66, 2020 U.S.
LEXIS 5187 (Oct. 26, 2020) ................................ 27
Wyoming v. Oklahoma, 502 U.S. 437 (1992) ........... 23

1832 Case 2:20-cv-01771-PP Filed 12/08/20 Page 55 of 92 Document 72-2

viii
Yick Wo v. Hopkins, 118 U.S. 356 (1886) ................ 12
Statutes
U.S. CONST. art. I, § 4 .............................................. 3-4
U.S. CONST. art. I, § 4, cl. 1 ..................................... 3-4
U.S. CONST. art. II, § 1, cl. 2 ............................. passim
U.S. CONST. art. III.................................... 8, 11-13, 15
U.S. CONST. art. III, § 2 .......................................... 1, 7
U.S. CONST. art. V, cl. 3 ............................................ 13
U.S. CONST. amend. XII ............................................. 6
U.S. CONST. amend. XIV, § 1, cl. 3 ............ 4, 12, 29-30
U.S. CONST. amend. XIV, § 1, cl. 4 ............ 4, 12, 29-30
U.S. CONST. amend. XX, § 1 ....................................... 8
3 U.S.C. § 2 ................................................. 5, 8, 17, 25
3 U.S.C. § 5 ............................................................... 20
3 U.S.C. § 15 ......................................................... 8, 17
28 U.S.C. § 1251(a) ............................................... 7, 34
28 U.S.C. § 1331 ......................................................... 9
52 U.S.C. § 20501(b)(1)-(2) ......................................... 2
52 U.S.C. § 20501(b)(3)-(4) ......................................... 2
Rules, Regulations and Orders
S.Ct. Rule 17.2 ........................................................ 6, 8
S.Ct. Rule 17.3 ............................................................ 1
FED. R. CIV. P. 15(a)(1)(A) .......................................... 6
FED. R. CIV. P. 15(a)(1)(B) .......................................... 6
FED. R. CIV. P. 15(a)(2) ............................................... 6
Other Authorities
BUILDING CONFIDENCE IN U.S. ELECTIONS: REPORT
OF THE COMMISSION ON FEDERAL ELECTION
REFORM (Sept. 2005) ............................................. 5

1833 Case 2:20-cv-01771-PP Filed 12/08/20 Page 56 of 92 Document 72-2

ix
THE FEDERALIST NO. 57 (C. Rossiter, ed. 2003)
(J. Madison) ......................................................... 26
Robert G. Natelson, The Original Scope of the
Congressional Power to Regulate Elections, 13
U. PA. J. CONST. L. 1 (2010) ........................... 25-26
J. Story, 1 COMMENTARIES ON THE CONSTITUTION
OF THE UNITED STATES § 627 (3d ed. 1858) ........ 10

1834 Case 2:20-cv-01771-PP Filed 12/08/20 Page 57 of 92 Document 72-2

No. ______, Original

In the Supreme Court of the United States
STATE OF TEXAS,
Plaintiff,
v.
COMMONWEALTH OF PENNSYLVANIA, STATE OF
STATE OF GEORGIA, STATE OF MICHIGAN, AND
STATE OF WISCONSIN,
Defendants.
BRIEF IN SUPPORT OF
MOTION FOR LEAVE TO FILE
Pursuant to S.Ct. Rule 17.3 and U.S. CONST. art.
III, § 2, the State of Texas (“Plaintiff State”)
respectfully submits this brief in support of its Motion
for Leave to File a Bill of Complaint against the
Commonwealth of Pennsylvania and the States of
Georgia, Michigan, and Wisconsin (collectively,
“Defendant States”).
STATEMENT OF THE CASE
Lawful elections are at the heart of our freedoms.
“No right is more precious in a free country than that
of having a voice in the election of those who make the
laws under which, as good citizens, we must live.
Other rights, even the most basic, are illusory if the
right to vote is undermined.” Wesberry v. Sanders, 376
U.S. 1, 10 (1964). Trust in the integrity of that process

1835 Case 2:20-cv-01771-PP Filed 12/08/20 Page 58 of 92 Document 72-2

2
is the glue that binds our citizenry and the States in
this Union.
Elections face the competing goals of maximizing
and counting lawful votes but minimizing and
excluding unlawful ones. Reynolds v. Sims, 377 U.S.
533, 554-55 (1964); Bush v. Gore, 531 U.S. 98, 103
(2000) (“the votes eligible for inclusion in the
certification are the votes meeting the properly
established legal requirements”) (“Bush II”); compare
52 U.S.C. § 20501(b)(1)-(2) (2018) with id.
§ 20501(b)(3)-(4). Moreover, “the right of suffrage can
be denied by a debasement or dilution of the weight of
a citizen’s vote just as effectively as by wholly
prohibiting the free exercise of the franchise.”
Reynolds, 377 U.S. at 555. Reviewing election results
requires not only counting lawful votes but also
eliminating unlawful ones.
It is an understatement to say that 2020 was not
a good year. In addition to a divided and partisan
national mood, the country faced the COVID-19
pandemic. Certain officials in Defendant States
presented the pandemic as the justification for
ignoring state laws regarding absentee and mail-in
voting. Defendant States flooded their citizenry with
tens of millions of ballot applications and ballots
ignoring statutory controls as to how they were
received, evaluated, and counted. Whether well
intentioned or not, these unconstitutional and
unlawful changes had the same uniform effect—they
made the 2020 election less secure in Defendant
States. Those changes were made in violation of
relevant state laws and were made by non-legislative
entities, without any consent by the state legislatures.

1836 Case 2:20-cv-01771-PP Filed 12/08/20 Page 59 of 92 Document 72-2

3
These unlawful acts thus directly violated the
Constitution. U.S. CONST. art. I, § 4; id. art. II, § 1, cl.
2.
This case presents a question of law: Did
Defendant States violate the Electors Clause by
taking non-legislative actions to change the election
rules that would govern the appointment of
presidential electors? Each of these States flagrantly
violated the statutes enacted by relevant State
legislatures, thereby violating the Electors Clause of
Article II, Section 1, Clause 2 of the Constitution. By
these unlawful acts, Defendant States have not only
tainted the integrity of their own citizens’ votes, but
their actions have also debased the votes of citizens in
the States that remained loyal to the Constitution.
Elections for federal office must comport with
federal constitutional standards, see Bush II, 531 U.S.
at 103-105, and executive branch government officials
cannot subvert these constitutional requirements, no
matter their stated intent. For presidential elections,
each State must appoint its electors to the electoral
college in a manner that complies with the
Constitution, specifically the Electors Clause
requirement that only state legislatures may set the
rules governing the appointment of electors and the
elections upon which such appointment is based.1
Subject to override by Congress, state legislatures have the
exclusive power to regulate the time, place, and manner for
electing Members of Congress, see U.S. CONST. art. I, § 4, which
is distinct from legislatures’ exclusive and plenary authority on
the appointment of presidential electors. When non-legislative
actors purport to set state election law for presidential elections,
they violate both the Elections Clause and the Electors Clause.
1

1837 Case 2:20-cv-01771-PP Filed 12/08/20 Page 60 of 92 Document 72-2

4
Constitutional Background
The right to vote is protected by the by the Equal
Protection Clause and the Due Process Clause. U.S.
CONST. amend. XIV, § 1, cl. 3-4. Because “the right to
vote is personal,” Reynolds, 377 U.S. at 561-62 (alterations omitted), “[e]very voter in a federal … election,
whether he votes for a candidate with little chance of
winning or for one with little chance of losing, has a
right under the Constitution to have his vote fairly
counted.” Anderson v. United States, 417 U.S. 211, 227
(1974); Baker v. Carr, 369 U.S. 186, 208 (1962).
Invalid or fraudulent votes debase or dilute the weight
of each validly cast vote. Bush II, 531 U.S. at 105. The
unequal treatment of votes within a state, and
unequal standards for processing votes raise equal
protection concerns. Id. Though Bush II did not
involve an action between States, the concern that
illegal votes can cancel out lawful votes does not stop
at a State’s boundary in the context of a Presidential
election.
The Electors Clause requires that each State
“shall appoint” its presidential electors “in such
Manner as the Legislature thereof may direct.” U.S.
CONST. art. II, § 1, cl. 2 (emphasis added); cf. id. art. I,
§ 4, cl. 1 (similar for time, place, and manner of federal
legislative elections). “[T]he state legislature’s power
to select the manner for appointing electors is
plenary,” Bush II, 531 U.S. at 104 (emphasis added),
and sufficiently federal for this Court’s review. Bush
v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76
(2000) (“Bush I”). This textual feature of our
Constitution was adopted to ensure the integrity of
the presidential selection process: “Nothing was more

1838 Case 2:20-cv-01771-PP Filed 12/08/20 Page 61 of 92 Document 72-2

5
to be desired than that every practicable obstacle
should be opposed to cabal, intrigue, and corruption.”
FEDERALIST NO. 68 (Alexander Hamilton). When a
State conducts a popular election to appoint electors,
the State must comply with all constitutional
requirements. Bush II, 531 U.S. at 104. When a State
fails to conduct a valid election—for any reason—”the
electors may be appointed on a subsequent day in such
a manner as the legislature of such State may direct.”
3 U.S.C. § 2 (emphasis added).
Non-Legislative Changes Made in Violation of
the Electors Clause
As set forth in the Complaint, executive and
judicial officials made significant changes to the
legislatively defined election rules in Defendant
States. See Compl. at ¶¶ 66-73 (Georgia), 80-93
(Michigan), 44-55 (Pennsylvania), 106-24 (Wisconsin).
Taken together, these non-legislative changes did
away with statutory ballot-security measures for
absentee and mail-in ballots such as signature
verification, witness requirements, and statutorily
authorized secure ballot drop-off locations.
Citing the COVID-19 pandemic, Defendant States
gutted the safeguards for absentee ballots through
non-legislative actions, despite knowledge that
absentee ballots are “the largest source of potential
voter fraud,” BUILDING CONFIDENCE IN U.S.
ELECTIONS: REPORT OF THE COMMISSION ON FEDERAL
ELECTION REFORM, at 46 (Sept. 2005) (hereinafter,
“CARTER-BAKER”), which is magnified when absentee
balloting is shorn of ballot-integrity measures such as
signature verification, witness requirements, or
outer-envelope protections, or when absentee ballots

1839 Case 2:20-cv-01771-PP Filed 12/08/20 Page 62 of 92 Document 72-2

6
are processed and tabulated without bipartisan
observation by poll watchers.
Without Defendant States’ combined 62 electoral
votes, President Trump presumably has 232 electoral
votes, and former Vice President Biden presumably
has 244. Thus, Defendant States’ presidential electors
will determine the outcome of the election.
Alternatively, if Defendant States are unable to
certify 37 or more presidential electors, neither
candidate will have a majority in the electoral college,
in which case the election would devolve to the House
of Representatives under the Twelfth Amendment.
Defendant States experienced serious voting
irregularities. See Compl. at ¶¶ 75-76 (Georgia), 97101 (Michigan), 55-60 (Pennsylvania), 122-28
(Wisconsin). At the time of this filing, Plaintiff State
continues to investigate allegations of not only
unlawful votes being counted but also fraud. Plaintiff
State reserves the right to seek leave to amend the
complaint as those investigations resolve. See S.Ct.
Rule 17.2; FED. R. CIV. P. 15(a)(1)(A)-(B), (a)(2). But
even the appearance of fraud in a close election is
poisonous to democratic principles: “Voters who fear
their legitimate votes will be outweighed by
fraudulent ones will feel disenfranchised.” Purcell v.
Gonzalez, 549 U.S. 1, 4 (2006); Crawford v. Marion
County Election Bd., 553 U.S. 181, 189 (2008) (States
have an interest in preventing voter fraud and
ensuring voter confidence).
STANDARD OF REVIEW
This Court considers two primary factors when it
decides whether to grant a State leave to file a bill of
complaint against another State: (1) “the nature of the

1840 Case 2:20-cv-01771-PP Filed 12/08/20 Page 63 of 92 Document 72-2

7
interest of the complaining State,” and (2) ”the
availability of an alternative forum in which the issue
tendered can be resolved.” Mississippi v. Louisiana,
506 U.S. 73, 77 (1992) (internal quotations omitted)
Because original proceedings in this Court follow the
Federal Rules of Civil Procedure, S.Ct. Rule 17.2, the
facts for purposes of a motion for leave to file are the
well-pleaded facts alleged in the complaint.
Hernandez v. Mesa, 137 S.Ct. 2003, 2005 (2017).
ARGUMENT
I. THIS COURT HAS JURISDICTION OVER
PLAINTIFF STATE’S CLAIMS.
In order to grant leave to file, this Court first must
assure itself of its jurisdiction, Steel Co. v. Citizens for
a Better Env’t., 523 U.S. 83, 95 (1998); cf. Foman v.
Davis, 371 U.S. 178, 182 (1962) (courts deny leave to
file amended pleadings that would be futile). That
standard is met here. Plaintiff State’s fundamental
rights and interests are at stake. This Court is the
only venue that can protect Plaintiff State’s electoral
college votes from being cancelled by the unlawful and
constitutionally tainted votes cast by electors
appointed and certified by Defendant States.
A. The claims fall within this Court’s
constitutional and statutory subjectmatter jurisdiction.
The federal judicial power extends to
“Controversies between two or more States.” U.S.
CONST. art. III, § 2, and Congress has placed the
jurisdiction for such suits exclusively with the
Supreme Court: “The Supreme Court shall have
original and exclusive jurisdiction of all controversies
between two or more States.” 28 U.S.C. § 1251(a)

1841 Case 2:20-cv-01771-PP Filed 12/08/20 Page 64 of 92 Document 72-2

8
(emphasis added). This Court not only is a permissible
court for hearing this action; it is the only court that
can hear this action quickly enough to render relief
sufficient to avoid constitutionally tainted votes in the
electoral college and to place the appointment of
Defendant States’ electors before their legislatures
pursuant to 3 U.S.C. § 2 in time for a vote in the House
of Representatives on January 6, 2021. See 3 U.S.C. §
15. With that relief in place, the House can resolve the
election on January 6, 2021, in time for the president
to be selected by the constitutionally set date of
January 20. U.S. CONST. amend. XX, § 1.
B. The claims arise under the Constitution.
When States violate their own election laws, they
may argue that these violations are insufficiently
federal to allow review in this Court. Cf. Foster v.
Chatman, 136 S.Ct. 1737, 1745-46 (2016) (this Court
lacks jurisdiction to review state-court decisions that
“rest[] on an adequate and independent state law
ground”). That attempted evasion would fail for two
reasons.
First, in the election context, a state-court remedy
or a state executive’s administrative action purporting
to alter state election statutes implicates the Electors
Clause. See Bush II, 531 U.S. at 105. Even a plausible
federal-law defense to state action arises under
federal law within the meaning of Article III. Mesa v.
California, 489 U.S. 121, 136 (1989) (holding that “it
is the raising of a federal question in the officer’s
removal petition that constitutes the federal law
under which the action against the federal officer
arises for Art. III purposes”). Constitutional arisingunder jurisdiction exceeds statutory federal-question

1842 Case 2:20-cv-01771-PP Filed 12/08/20 Page 65 of 92 Document 72-2

9
jurisdiction of federal district courts,2 and—indeed—
we did not even have federal-question jurisdiction
until 1875. Merrell Dow Pharm., 478 U.S. at 807.
Plaintiff States’ Electoral Clause claims arise under
the Constitution and so are federal, even if the only
claim is that Defendant States violated their own
state election statutes. Moreover, as is explained
below, Defendant States’ actions injure the interests
of Plaintiff State in the appointment of electors to the
electoral college in a manner that is inconsistent with
the Constitution.
Given this federal-law basis against these state
actions, the state actions are not “independent” of the
federal constitutional requirements that provide this
Court jurisdiction. Fox Film Corp. v. Muller, 296 U.S.
207, 210-11 (1935); cf. City of Chicago v. Int’l Coll. of
Surgeons, 522 U.S. 156, 164 (1997) (noting that “even
though state law creates a party’s causes of action, its
case might still ‘arise under’ the laws of the United
States if a well-pleaded complaint established that its
right to relief under state law requires resolution of a
substantial question of federal law” and collecting
cases) (internal quotations and alterations omitted).
Plaintiff State’s claims therefore fall within this
Court’s jurisdiction.
Second, state election law is not purely a matter
of state law because it applies “not only to elections to
state offices, but also to the election of Presidential
The statute for federal officer removal at issue in Mesa omits
the well-pleaded complaint rule, id., which is a statutory
restriction on federal question jurisdiction under 28 U.S.C. §
1331. See Merrell Dow Pharm., Inc. v. Thompson, 478 U.S. 804,
808 (1986).
2

1843 Case 2:20-cv-01771-PP Filed 12/08/20 Page 66 of 92 Document 72-2

10
electors,” meaning that state law operates, in part, “by
virtue of a direct grant of authority made under Art.
II, § 1, cl. 2, of the United States Constitution.” Bush
I, 531 U.S. at 76. Logically, “any state authority to
regulate election to [federal] offices could not precede
their very creation by the Constitution,” meaning that
any “such power had to be delegated to, rather than
reserved by, the States.” Cook v. Gralike, 531 U.S.
510, 522 (2001) (internal quotations omitted). “It is no
original prerogative of State power to appoint a
representative, a senator, or President for the Union.”
J. Story, 1 COMMENTARIES ON THE CONSTITUTION OF
THE UNITED STATES § 627 (3d ed. 1858). For these
reasons, any “significant departure from the
legislative scheme for appointing Presidential electors
presents a federal constitutional question.” Bush II,
531 U.S. at 113 (Rehnquist, C.J., concurring).
Under these circumstances, this Court has the
power both to review and to remedy a violation of the
Constitution. Significantly, parties do not need
winning hands to establish jurisdiction. Instead,
jurisdiction exists when “the right of the petitioners to
recover under their complaint will be sustained if the
Constitution and laws of the United States are given
one construction,” even if the right “will be defeated if
they are given another.” Bell v. Hood, 327 U.S. 678,
685 (1946). At least as to jurisdiction, a plaintiff need
survive only the low threshold that “the alleged claim
under the Constitution or federal statutes [not] … be
immaterial and made solely for the purpose of
obtaining jurisdiction or … wholly insubstantial and
frivolous.” Id. at 682. The bill of complaint meets that
test.

1844 Case 2:20-cv-01771-PP Filed 12/08/20 Page 67 of 92 Document 72-2

11
C. The claims raise a “case or controversy”
between the States.
Like any other action, an original action must
meet the Article III criteria for a case or controversy:
“it must appear that the complaining State has
suffered a wrong through the action of the other State,
furnishing ground for judicial redress, or is asserting
a right against the other State which is susceptible of
judicial enforcement according to the accepted
principles of the common law or equity systems of
jurisprudence.” Maryland v. Louisiana, 451 U.S. 725,
735-36 (1981) (internal quotations omitted). Plaintiff
State has standing under those rules.3
With voting, “‘the right of suffrage can be denied
by a debasement or dilution of the weight of a citizen’s
vote just as effectively as by wholly prohibiting the
free exercise of the franchise.’” Bush II, 531 U.S. at
105 (quoting Reynolds, 377 U.S. at 555). In
presidential elections, “the impact of the votes cast in
each State is affected by the votes cast for the various
candidates in other States.” Anderson v. Celebrezze,
460 U.S. 780, 795 (1983). Thus, votes in Defendant
States affect the votes in Plaintiff State, as set forth
in more detail below.

At its constitutional minimum, standing doctrine measures
the necessary effect on plaintiffs under a tripartite test:
cognizable injury to the plaintiffs, causation by the challenged
conduct, and redressable by a court. Lujan v. Defenders of
Wildlife, 504 U.S. 555, 561-62 (1992). The rules for standing in
state-versus-state actions is the same as the rules in other
actions under Article III. See Maryland v. Louisiana, 451 U.S.
725, 736 (1981).
3

1845 Case 2:20-cv-01771-PP Filed 12/08/20 Page 68 of 92 Document 72-2

12
1. Plaintiff State suffers an injury in
fact.
The citizens of Plaintiff State have the right to
demand that all other States abide by the
constitutionally set rules in appointing presidential
electors to the electoral college. “No right is more
precious in a free country than that of having a voice
in the election of those who make the laws under
which, as good citizens, we must live. Other rights,
even the most basic, are illusory if the right to vote is
undermined.” Wesberry, 376 U.S. at 10; Yick Wo v.
Hopkins, 118 U.S. 356, 370 (1886) (“the political
franchise of voting” is “a fundamental political right,
because preservative of all rights”). “Every voter in a
federal … election, whether he votes for a candidate
with little chance of winning or for one with little
chance of losing, has a right under the Constitution to
have his vote fairly counted.” Anderson v. United
States, 417 U.S. at 227; Baker, 369 U.S. at 208. Put
differently, “a citizen has a constitutionally protected
right to participate in elections on an equal basis with
other citizens in the jurisdiction,” Dunn v. Blumstein,
405 U.S. 330, 336 (1972), and—unlike the residency
durations required in Dunn—the “jurisdiction” here is
the entire United States. In short, the rights at issue
are congeable under Article III.
Significantly, Plaintiff State presses its own form
of voting-rights injury as States. As with the oneperson, one-vote principle for congressional
redistricting in Wesberry, the equality of the States
arises from the structure of the Constitution, not from
the Equal Protection or Due Process Clauses. See
Wesberry, 376 U.S. at 7-8; id. n.10 (expressly not

1846 Case 2:20-cv-01771-PP Filed 12/08/20 Page 69 of 92 Document 72-2

13
reaching claims under Fourteenth Amendment).
Whereas the House represents the People
proportionally, the Senate represents the States. See
U.S. CONST. art. V, cl. 3 (“no state, without its consent,
shall be deprived of its equal suffrage in the Senate”).
While Americans likely care more about who is elected
President, the States have a distinct interest in who
is elected Vice President and thus who can cast the tiebreaking vote in the Senate. Through that interest,
States suffer an Article III injury when another State
violates federal law to affect the outcome of a
presidential election. This injury is particularly acute
in 2020, where a Senate majority often will hang on
the Vice President’s tie-breaking vote because of the
nearly equal—and, depending on the outcome of
Georgia run-off elections in January, possibly equal—
balance between political parties. Quite simply, it is
vitally important to the States who becomes Vice
President.
Because individual citizens may arguably suffer
only a generalized grievance from Electors Clause
violations, States have standing where their citizen
voters would not, Lance v. Coffman, 549 U.S. 437, 442
(2007) (distinguishing citizen plaintiffs from citizen
relators who sued in the name of a state). In
Massachusetts v. Environmental Protection Agency,
549 U.S. 497 (2007), this Court held that states
seeking to protect their sovereign interests are
“entitled to special solicitude in our standing
analysis.” Id. at 520. While Massachusetts arose in a
different context—the same principles of federalism
apply equally here to require special deference to the
sovereign states on standing questions.

1847 Case 2:20-cv-01771-PP Filed 12/08/20 Page 70 of 92 Document 72-2

14
In addition to standing for their own injuries,
States can assert parens patriae standing for their
citizens who are presidential electors.4 Like
legislators, presidential electors assert “legislative
injury” whenever allegedly improper actions deny
them a working majority. Coleman v. Miller, 307 U.S.
433, 435 (1939). The electoral college is a zero-sum
game. If Defendant States’ unconstitutionally
appointed electors vote for a presidential candidate
opposed by the Plaintiff State’s electors, that operates
to defeat Plaintiff State’s interests.5 Indeed, even
without an electoral college majority, presidential
electors suffer the same voting-debasement injury as
voters generally: “It must be remembered that ‘the
“The ‘parens patriae’ doctrine … is a recognition of the
principle that the state, when a party to a suit involving a matter
of sovereign interest, ‘must be deemed to represent all its
citizens.’” New Jersey v. New York, 345 U.S. 369, 372-73 (1953)
(quoting Kentucky v. Indiana, 281 U.S. 163, 173 (1930)).
4

Because Plaintiff State appointed its electors consistent
with the Constitution, they suffer injury if its electors are
defeated by Defendant States’ unconstitutionally appointed
electors. This injury is all the more acute because Plaintiff State
has taken steps to prevent fraud. For example, Texas does not
allow no excuse vote by mail (Texas Election Code Sections
82.001-82.004); has strict signature verification procedures (Tex.
Election Code §87.027(j); Early voting ballot boxes have two locks
and different keys and other strict security measures (Tex.
Election Code §§85.032(d) & 87.063); requires voter ID (House
Comm. on Elections, Bill Analysis, Tex. H.B. 148, 83d R.S.
(2013)); has witness requirements for assisting those in need
(Tex. Election Code §§ 86.0052 & 86.0105), and does not allow
ballot harvesting Tex. Election Code 86.006(f)(1-6). Unlike
Defendant States, Plaintiff State neither weakened nor allowed
the weakening of its ballot-integrity statutes by non-legislative
means.
5

1848 Case 2:20-cv-01771-PP Filed 12/08/20 Page 71 of 92 Document 72-2

15
right of suffrage can be denied by a debasement or
dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of
the franchise.’” Bush II, 531 U.S. at 105 (quoting
Reynolds v. Sims, 377 U. S. 533, 555 (1964)) (“Bush
II”). Finally, once Plaintiff State has standing to
challenge Defendant States’ unlawful actions,
Plaintiff State may do so on any legal theory that
undermines those actions. Duke Power Co. v. Carolina
Envtl. Study Group, Inc., 438 U.S. 59, 78-81 (1978);
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 353 &
n.5 (2006). Injuries to Plaintiff State’s electors serve
as an Article III basis for a parens patriae action.
2. Defendant States caused the
injuries.
Non-legislative officials in Defendant States
either directly caused the challenged violations of the
Electors Clause or, in the case of Georgia, acquiesced
to them in settling a federal lawsuit. The Defendants
thus caused the Plaintiff’s injuries.
3. The requested relief would redress
the injuries.
This Court has authority to redress Plaintiff
State’s injuries, and the requested relief will do so.
First, while Defendant States are responsible for
their elections, this Court has authority to enjoin
reliance on unconstitutional elections:
When the state legislature vests the right to
vote for President in its people, the right to
vote as the legislature has prescribed is
fundamental; and one source of its fundamental nature lies in the equal weight

1849 Case 2:20-cv-01771-PP Filed 12/08/20 Page 72 of 92 Document 72-2

16
accorded to each vote and the equal dignity
owed to each voter.
Bush II, 531 U.S. at 104; City of Boerne v. Flores, 521
U.S. 507, 524 (1997) (“power to interpret the
Constitution in a case or controversy remains in the
Judiciary”). Plaintiff State does not ask this Court to
decide who won the election; they only ask that the
Court enjoin the clear violations of the Electors Clause
of the Constitution.
Second, the relief that Plaintiff State requests—
namely, remand to the State legislatures to allocate
electors in a manner consistent with the
Constitution—does not violate Defendant States’
rights or exceed this Court’s power. The power to
select electors is a plenary power of the State
legislatures, and this remains so, without regard to
state law:
This power is conferred upon the legislatures
of the States by the Constitution of the United
States, and cannot be taken from them or
modified by their State constitutions….
Whatever provisions may be made by statute,
or by the state constitution, to choose electors
by the people, there is no doubt of the right of
the legislature to resume the power at any
time, for it can neither be taken away nor
abdicated.
McPherson v. Blacker, 146 U.S. 1, 35 (1892) (internal
quotations omitted); accord Bush I, 531 U.S. at 76-77;
Bush II, 531 U.S at 104.
Third, uncertainty of how Defendant States’
legislatures will allocate their electors is irrelevant to
the question of redressability:

1850 Case 2:20-cv-01771-PP Filed 12/08/20 Page 73 of 92 Document 72-2

17
If a reviewing court agrees that the agency
misinterpreted the law, it will set aside the
agency’s action and remand the case – even
though the agency … might later, in the
exercise of its lawful discretion, reach the
same result for a different reason.
FEC v. Akins, 524 U.S. 11, 25 (1998). Defendant
States’ legislatures would remain free to exercise
their plenary authority under the Electors Clause in
any constitutional manner they wish. Under Akins,
the simple act of reconsideration under lawful means
is redress enough.
Fourth, the requested relief is consistent with
federal election law: “Whenever any State has held an
election for the purpose of choosing electors, and has
failed to make a choice on the day prescribed by law,
the electors may be appointed on a subsequent day in
such a manner as the legislature of such State may
direct.” 3 U.S.C. § 2. Regardless of the statutory
deadlines for the electoral college to vote, this Court
could enjoin reliance on the results from the
constitutionally tainted November 3 election, remand
the appointment of electors to Defendant States, and
order Defendant States’ legislatures to certify their
electors in a manner consistent with the Constitution,
which could be accomplished well in advance of the
statutory deadline of January 6 for House to count the
presidential electors’ votes. 3 U.S.C. § 15.
D. This action is not moot and will not
become moot.
None of the looming election deadlines are
constitutional, and they all are within this Court’s
power to enjoin. Indeed, if this Court vacated a State’s

1851 Case 2:20-cv-01771-PP Filed 12/08/20 Page 74 of 92 Document 72-2

18
appointment of presidential electors, those electors
could not vote on December 14, 2020; if the Court
vacated their vote after the fact, the House of
Representatives could not count those votes on
January 6, 2021. Moreover, any remedial action can
be complete well before January 6, 2020. Indeed, even
the swearing in of the next President on January 20,
2021, will not moot this case because review could
outlast even the selection of the next President under
“the ‘capable of repetition, yet evading review’
doctrine,” which applies “in the context of election
cases … when there are ‘as applied’ challenges as well
as in the more typical case involving only facial
attacks.” FEC v. Wisconsin Right to Life, Inc., 551 U.S.
449, 463 (2007) (internal quotations omitted); accord
Norman v. Reed, 502 U.S. 279, 287-88 (1992).
Mootness is not, and will not become, an issue here.
E. This matter is ripe for review.
Plaintiff State’s claims are clearly ripe now, but
they were not ripe before the election: “A claim is not
ripe for adjudication if it rests upon contingent future
events that may not occur as anticipated, or indeed
may not occur at all.” Texas v. United States, 523 U.S.
296, 300 (1998) (internal quotations and citations
omitted). Prior to the election, there was no reason to
know who would win the vote in any given State.
Ripeness also raises the question of laches, which
Justice Blackmun called “precisely the opposite argument” from ripeness. Lujan v. Nat’l Wildlife Fed’n,
497 U.S. 871, 915 n.16 (1990) (Blackmun, J.,
dissenting). Laches is an equitable defense against
unreasonable delay in commencing suit. Petrella v.
MGM, 572 U.S. 663, 667 (2014). This action was

1852 Case 2:20-cv-01771-PP Filed 12/08/20 Page 75 of 92 Document 72-2

19
neither unreasonably delayed nor is prejudicial to
Defendant States.
Before the election, Plaintiff States had no ripe
claim against a Defendant State:
“One cannot be guilty of laches until his right
ripens into one entitled to protection. For only
then can his torpor be deemed inexcusable.”
What-A-Burger of Va., Inc. v. Whataburger, Inc., 357
F.3d 441, 449-50 (4th Cir. 2004) (quoting 5 J. Thomas
McCarthy, MCCARTHY ON TRADEMARKS AND UNFAIR
COMPETITION § 31: 19 (4th ed. 2003); Gasser Chair Co.
v. Infanti Chair Mfg. Corp., 60 F.3d 770, 777 (Fed. Cir.
1995) (same); Profitness Physical Therapy Ctr. v. ProFit Orthopedic & Sports Physical Therapy P.C., 314
F.3d 62, 70 (2d Cir. 2002) (same). Plaintiff State could
not have brought this action before the election
results. The extent of the county-level deviations from
election statutes in Defendant States became evident
well after the election. Neither ripeness nor laches
presents a timing problem here.
F. This action does not raise a nonjusticiable political question.
The “political questions doctrine” does not apply
here. Under that doctrine, federal courts will decline
to review issues that the Constitution delegates to one
of the other branches—the “political branches”—of
government. While picking electors involves political
rights, the Supreme Court has ruled in a line of cases
beginning with Baker that constitutional claims
related to voting (other than claims brought under the
Guaranty Clause) are justiciable in the federal courts.
As the Court held in Baker, litigation over political
rights is not the same as a political question:

1853 Case 2:20-cv-01771-PP Filed 12/08/20 Page 76 of 92 Document 72-2

20
We hold that this challenge to an
apportionment presents no nonjusticiable
“political question.” The mere fact that the
suit seeks protection of a political right does
not mean it presents a political question. Such
an objection “is little more than a play upon
words.”
Baker, 369 U.S. at 209. This is no political question; it
is a constitutional one that this Court should answer.
G. No adequate alternate remedy or forum
exists.
In determining whether to hear a case under this
Court’s original jurisdiction, the Court has considered
whether a plaintiff State “has another adequate forum
in which to settle [its] claim.” United States v. Nevada,
412 U.S. 534, 538 (1973). This equitable limit does not
apply here because Plaintiff State cannot sue
Defendant States in any other forum.
To the extent that Defendant States wish to avail
themselves of 3 U.S.C. § 5’s safe harbor, Bush I, 531
U.S. at 77-78, this action will not meaningfully stand
in their way:
The State, of course, after granting the
franchise in the special context of Article II,
can take back the power to appoint electors. …
There is no doubt of the right of the legislature
to resume the power at any time, for it can
neither be taken away nor abdicated[.]
Bush II, 531 U.S. at 104 (citations and internal
quotations omitted).6 Defendant States’ legislature
Indeed, the Constitution also includes another backstop: “if
no person have such majority [of electoral votes], then from the
6

1854 Case 2:20-cv-01771-PP Filed 12/08/20 Page 77 of 92 Document 72-2

21
will remain free under the Constitution to appoint
electors or vote in any constitutional manner they
wish. The only thing that they cannot do—and should
not wish to do—is to rely on an allocation conducted
in violation of the Constitution to determine the
appointment of presidential electors.
Moreover, if this Court agrees with Plaintiff State
that Defendant States’ appointment of presidential
electors under the recently conducted elections would
be unconstitutional, then the statutorily created safe
harbor cannot be used as a justification for a violation
of the Constitution. The safe-harbor framework
created by statute would have to yield in order to
ensure that the Constitution was not violated.
It is of no moment that Defendants’ state laws may
purport to tether state legislatures to popular votes.
Those state limits on a state legislature’s exercising
federal constitutional functions cannot block action
because the federal Constitution “transcends any
limitations sought to be imposed by the people of a
State” under this Court’s precedents. Leser v. Garnett,
258 U.S. 130, 137 (1922); see also Bush I, 531 U.S. at
77; United States Term Limits v. Thornton, 514 U.S.
779, 805 (1995) (“the power to regulate the incidents
of the federal system is not a reserved power of the
States, but rather is delegated by the Constitution”).
As this Court recognized in McPherson v. Blacker, the
authority to choose presidential electors:

persons having the highest numbers not exceeding three on the
list of those voted for as President, the House of Representatives
shall choose immediately, by ballot.” U.S. CONST. amend. XII.

1855 Case 2:20-cv-01771-PP Filed 12/08/20 Page 78 of 92 Document 72-2

22
is conferred upon the legislatures of the states
by the Constitution of the United States, and
cannot be taken from them or modified by
their state constitutions. ... Whatever
provisions may be made by statute, or by the
state constitution, to choose electors by the
people, there is no doubt of the right of the
legislature to resume the power at any time, for
it can neither be taken away or abdicated.
146 U.S. 1, 35 (1892) (emphasis added) (internal
quotations omitted). Defendant States would suffer no
cognizable injury from this Court’s enjoining their
reliance on an unconstitutional vote.
II. THIS CASE PRESENTS CONSTITUTIONAL
QUESTIONS OF IMMENSE NATIONAL
CONSEQUENCE THAT WARRANT THIS
COURT’S DISCRETIONARY REVIEW.
Electoral integrity ensures the legitimacy of not
just our governmental institutions, but the Republic
itself. See Wesberry, 376 U.S. at 10. “Voters who fear
their legitimate votes will be outweighed by
fraudulent ones will feel disenfranchised.” Purcell,
549 U.S. at 4. Against that backdrop, few cases could
warrant this Court’s review more than this one. In
addition, the constitutionality of the process for
selecting the President is of extreme national
importance. If Defendant States are permitted to
violate the requirements of the Constitution in the
appointment of their electors, the resulting vote of the
electoral college not only lacks constitutional
legitimacy, but the Constitution itself will be forever
sullied.

1856 Case 2:20-cv-01771-PP Filed 12/08/20 Page 79 of 92 Document 72-2

23
Though the Court claims “discretion when
accepting original cases, even as to actions between
States where [its] jurisdiction is exclusive,” Wyoming
v. Oklahoma, 502 U.S. 437, 450 (1992) (internal
quotations omitted), this is not a case where the Court
should apply that discretion “sparingly.” Id. While
Plaintiff State disputes that exercising this Court’s
original jurisdiction is discretionary, see Section III,
infra, the clear unlawful abrogation of Defendant
States’ election laws designed to ensure election
integrity by a few officials, and examples of material
irregularities in the 2020 election cumulatively
warrant this Court’s exercising jurisdiction as this
Court’s “unsought responsibility to resolve the federal
and constitutional issues the judicial system has been
forced to confront.” Bush II, 531 U.S. at 111; see also
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803)
(“It is emphatically the province and duty of the
judicial department to say what the law is.”). While
isolated irregularities could be “garden-variety”
election irregularities that do not raise a federal
question,7 the closeness of the presidential election
results, combined with the unconstitutional settingaside of state election laws by non-legislative actors
call both the result and the process into question.

“To be sure, ‘garden variety election irregularities’ may not
present facts sufficient to offend the Constitution’s guarantee of
due process[.]” Hunter v. Hamilton Cty. Bd. of Elections, 635 F.3d
219, 232 (6th Cir. 2011) (quoting Griffin, 570 F.2d at 1077-79)).
7

1857 Case 2:20-cv-01771-PP Filed 12/08/20 Page 80 of 92 Document 72-2

24
A. The 2020 election suffered from serious
irregularities that constitutionally
prohibit using the reported results.
Defendant States’ administration of the 2020
election violated several constitutional requirements
and, thus, violated the rights that Plaintiff State
seeks to protect. “When the state legislature vests the
right to vote for President in its people, the right to
vote as the legislature has prescribed is fundamental;
and one source of its fundamental nature lies in the
equal weight accorded to each vote and the equal
dignity owed to each voter.” Bush II, 531 U.S. at 104.8
Even a State legislature vested with authority to
regulate election procedures lacks authority to
“abridg[e …] fundamental rights, such as the right to
vote.” Tashjian v. Republican Party, 479 U.S. 208, 217
(1986). As demonstrated in this section, Defendant
States’ administration of the 2020 election violated
the Electors Clause, which renders invalid any
appointment of electors based upon those election
results, unless the relevant State legislatures review
and modify or expressly ratify those results as
sufficient to determine the appointment of electors.
For example, even without fraud or nefarious intent,
a mail-in vote not subjected to the State legislature’s
ballot-integrity measures cannot be counted.
It does not matter that a judicial or executive
officer sought to bypass that screening in response to
the COVID pandemic: the choice was not theirs to
The right to vote is “a fundamental political right, because
preservative of all rights.” Reynolds, 377 U.S. at 561-62 (internal
quotations omitted).
8

1858 Case 2:20-cv-01771-PP Filed 12/08/20 Page 81 of 92 Document 72-2

25
make. “Government is not free to disregard the [the
Constitution] in times of crisis.” Roman Catholic
Diocese of Brooklyn, New York v. Cuomo, 592 U.S. ___
(Nov. 25, 2020) (Gorsuch, J., concurring). With all
unlawful votes discounted, the election result is an
open question that this Court must address. Under 3
U.S.C. § 2, the State legislatures may answer the
question, but the question must be asked here.
1. Defendant States violated the
Electors Clause by modifying their
legislatures’ election laws through
non-legislative action.
The Electors Clause grants authority to state
legislatures under both horizontal and vertical
separation of powers. It provides authority to each
State—not to federal actors—the authority to dictate
the manner of selecting presidential electors. And
within each State, it explicitly allocates that authority
to a single branch of State government: to the
“Legislature thereof.” U.S. CONST. art. II, § 1, cl. 2.
State legislatures’ primacy vis-à-vis non-legislative
actors—whether State or federal—is even more
significant than congressional primacy vis-à-vis State
legislatures.
The State legislatures’ authority is plenary. Bush
II, 531 U.S. at 104. It “cannot be taken from them or
modified” even through “their state constitutions.”
McPherson, 146 U.S. at 35; Bush I, 531 U.S at 76-77;
Bush II, 531 U.S at 104. The Framers allocated
election authority to State legislatures as the branch
closest—and most accountable—to the People. See,
e.g., Robert G. Natelson, The Original Scope of the
Congressional Power to Regulate Elections, 13 U. PA.

1859 Case 2:20-cv-01771-PP Filed 12/08/20 Page 82 of 92 Document 72-2

26
J. CONST. L. 1, 31 (2010) (collecting Founding-era
documents); cf. THE FEDERALIST NO. 57, at 350 (C.
Rossiter, ed. 2003) (J. Madison) (“House of
Representatives is so constituted as to support in its
members a habitual recollection of their dependence
on the people”). Thus, only the State legislatures are
permitted to create or modify the respective State’s
rules for the appointment of presidential electors. U.S.
CONST. art. II, § 1, cl. 2.
“[T]here must be a substantial regulation of
elections if they are to be fair and honest and if some
sort of order, rather than chaos, is to accompany the
democratic processes.” Burdick v. Takushi, 504 U.S.
428, 433 (1992) (interior quotations omitted). Thus,
for example, deadlines are necessary, even if some
votes sent via absentee ballot do not arrive timely.
Rosario v. Rockefeller, 410 U.S. 752, 758 (1973). Even
more importantly in this pandemic year with
expanded mail-in voting, ballot-integrity measures—
e.g., witness requirements, signature verification, and
the like—are an essential component of any
legislative expansion of mail-in voting. See CARTERBAKER, at 46 (absentee ballots are “the largest source
of potential voter fraud”). Though it may be tempting
to permit a breakdown of the constitutional order in
the face of a global pandemic, the rule of law demands
otherwise.
Specifically, because the Electors Clause makes
clear that state legislative authority is exclusive, nonlegislative actors lack authority to amend statutes.
Republican Party of Pa. v. Boockvar, No. 20-542, 2020
U.S. LEXIS 5188, at *4 (Oct. 28, 2020) (“there is a
strong likelihood that the State Supreme Court

1860 Case 2:20-cv-01771-PP Filed 12/08/20 Page 83 of 92 Document 72-2

27
decision violates the Federal Constitution”) (Alito, J.,
concurring); Wisconsin State Legis., No. 20A66, 2020
U.S. LEXIS 5187, at *11-14 (Oct. 26, 2020)
(Kavanaugh, J., concurring in denial of application to
vacate stay); cf. Grayned v. City of Rockford, 408 U.S.
104, 110 (1972) (“it is not within our power to construe
and narrow state laws”); Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 509-10 (2010)
(“editorial freedom … [to “blue-pencil” statutes]
belongs to the Legislature, not the Judiciary”). That
said, courts can enjoin elections or even enforcement
of unconstitutional election laws, but they cannot
rewrite the law in federal presidential elections.
For example, if a state court enjoins or modifies
ballot-integrity measures adopted to allow absentee
or mail-in voting, that invalidates ballots cast under
the relaxed standard unless the legislature has—prior
to the election—ratified the new procedure. Without
pre-election legislative ratification, results based on
the treatment and tabulation of votes done in
violation of state law cannot be used to appoint
presidential electors.
Elections must be lawful contests, but they should
not be mere litigation contests where the side with the
most lawyers wins. As with the explosion of nationwide injunctions, the explosion of challenges to State
election law for partisan advantage in the lead-up to
the 2020 election “is not normal.” Dep’t of Homeland
Sec. v. New York, 140 S. Ct. 599, 600 (2020) (Gorsuch,
J., concurring in the grant of stay). Nor is it healthy.
Under the “Purcell principle,” federal courts generally
avoid enjoining state election laws in the period close
to an election. Purcell, 549 U.S. at 4-5 (citing “voter

1861 Case 2:20-cv-01771-PP Filed 12/08/20 Page 84 of 92 Document 72-2

28
confusion and consequent incentive to remain away
from the polls”). Purcell raises valid concerns about
confusion in the run-up to elections, but judicial
election-related injunctions also raise post-election
concerns. For example, if a state court enjoins ballotintegrity measures adopted to secure absentee or
mail-in voting, that invalidates ballots cast under the
relaxed standard unless the State legislature has had
time to ratify the new procedure. Without either preelection legislative ratification or a severability clause
in the legislation that created the rules for absentee
voting by mail, the state court’s actions operate to
violate the Electors Clause.
2. State and local administrator’s
systemic failure to follow State
election qualifies as an unlawful
amendment of State law.
When non-legislative state and local executive
actors engage in systemic or intentional failure to
comply with their State’s duly enacted election laws,
they adopt by executive fiat a de facto equivalent of an
impermissible amendment of State election law by an
executive or judicial officer. See Section II.A.1, supra.
This Court recognizes an executive’s “consciously and
expressly adopt[ing] a general policy that is so
extreme as to amount to an abdication of its statutory
responsibilities” as another form of reviewable final
action, even if the policy is not a written policy.
Heckler v. Chaney, 470 U.S. 821, 833 n.4 (1985)
(interior quotations omitted); accord id. at 839
(Brennan, J., concurring). Without a bona fide
amendment to State election law by the legislature,
executive officers must follow state law. Cf. Morton v.

1862 Case 2:20-cv-01771-PP Filed 12/08/20 Page 85 of 92 Document 72-2

29
Ruiz, 415 U.S. 199, 235 (1974); Service v. Dulles, 354
U.S. 363, 388-89 (1957). The wrinkle here is that the
non-legislative actors lack the authority under the
federal Constitution to enact a bona fide amendment,
regardless of whatever COVID-related emergency
power they may have.
This form of executive nullification of state law by
statewide, county, or city officers is a variant of
impermissible amendment by a non-legislative actor.
See Section II.A.1, supra. Such nullification is always
unconstitutional, but it is especially egregious when it
eliminates legislative safeguards for election integrity
(e.g., signature and witness requirements for absentee
ballots, poll watchers9). Systemic failure by statewide,
county, or city election officials to follow State election
law is no more permissible than formal amendments
by an executive or judicial actor.
3. Defendant States’ administration of
the 2020 election violated the
Fourteenth Amendment.
In each of Defendant States, important rules
governing the sending, receipt, validity, and counting
of ballots were modified in a manner that varied from
county to county. These variations from county to
county violated the Equal Protection Clause, as this
Poll watchers are “prophylactic measures designed to prevent election fraud,” Harris v. Conradi, 675 F.2d 1212, 1216 n.10
(11th Cir. 1982), and “to insure against tampering with the
voting process.” Baer v. Meyer, 728 F.2d 471, 476 (10th Cir.
1984). For example, poll monitors reported that 199 Chicago
voters cast 300 party-line Democratic votes, as well as three
party-line Republican votes in one election. Barr v. Chatman,
397 F.2d 515, 515-16 & n.3 (7th Cir. 1968).
9

1863 Case 2:20-cv-01771-PP Filed 12/08/20 Page 86 of 92 Document 72-2

30
Court explained at length in Bush II. Each vote must
be treated equally. “When the state legislature vests
the right to vote for President in its people, the right
to vote as the legislature has prescribed is
fundamental; and one source of its fundamental
nature lies in the equal weight accorded to each vote
and the equal dignity owed to each voter.” Bush II, 531
U.S. at 104. The Equal Protection Clause demands
uniform “statewide standards for determining what is
a legal vote.” Id. at 110.
Differential intrastate voting standards are
“hostile to the one man, one vote basis of our
representative government.” Bush II, 531 U.S. at 107
(internal quotations omitted). These variations from
county to county also appear to have operated to affect
the election result. For example, the obstruction of
poll-watcher requirements that occurred in
Michigan’s Wayne County may have contributed to
the unusually high number of more than 173,000
votes which are not tied to a registered voter and that
71 percent of the precincts are out of balance with no
explanation. Compl. ¶ 97.
Regardless of whether the modification of legal
standards in some counties in Defendant States tilted
the election outcome in those States, it is clear that
the standards for determining what is a legal vote
varied greatly from county to county. That constitutes
a clear violation of the Equal Protection Clause; and
it calls into question the constitutionality of any
Electors appointed by Defendant States based on such
an unconstitutional election.
The Fourteenth Amendment’s due process clause
protects the fundamental right to vote against “[t]he

1864 Case 2:20-cv-01771-PP Filed 12/08/20 Page 87 of 92 Document 72-2

31
disenfranchisement of a state electorate.” Duncan v.
Poythress, 657 F.2d 691, 702 (5th Cir. 1981).
Weakening or eliminating signature-validating
requirements, then restricting poll watchers also
undermines the 2020 election’s integrity—especially
as practiced in urban centers with histories of
electoral fraud—also violates substantive due process.
Griffin v. Burns, 570 F.2d 1065, 1077 (1st Cir. 1978)
(“violation of the due process clause may be indicated”
if “election process itself reaches the point of patent
and fundamental unfairness”); see also Florida State
Conference of N.A.A.C.P. v. Browning, 522 F.3d 1153,
1183-84 (11th Cir. 2008); Roe v. State of Ala. By &
Through Evans, 43 F.3d 574, 580-82 (11th Cir. 1995);
Roe v. State of Ala., 68 F.3d 404, 407 (11th Cir. 1995);
Marks v. Stinson, 19 F. 3d 873, 878 (3rd Cir. 1994).
Defendant States made concerted efforts to weaken or
nullify their legislatures’ ballot-integrity measures for
the unprecedented deluge of mail-in ballots, citing the
COVID-19 pandemic as a rationale. But “Government
is not free to disregard the [the Constitution] in times
of crisis.” Roman Catholic Diocese of Brooklyn, 592
U.S. at ___ (Gorsuch, J., concurring).
Similarly, failing to follow procedural requirements for amending election standards violates
procedural due process. Brown v. O’Brien, 469 F.2d

563, 567 (D.C. Cir.), vacated as moot, 409 U.S. 816
(1972). Under this Court’s precedents on procedural
due process, not only intentional failure to follow
election law as enacted by a State’s legislature but
also random and unauthorized acts by state election
officials and their designees in local government can
violate the Due Process Clause. Parratt v. Taylor, 451

1865 Case 2:20-cv-01771-PP Filed 12/08/20 Page 88 of 92 Document 72-2

32
U.S. 527, 537-41 (1981), overruled in part on other
grounds by Daniels v. Williams, 474 U.S. 327, 330-31
(1986); Hudson v. Palmer, 468 U.S. 517, 532 (1984).
Here, the violations all were intentional, even if done
for the reason of addressing the COVID-19 pandemic.
While Plaintiff State disputes that exercising this
Court’s original jurisdiction is discretionary, see
Section III, infra, the clear unlawful abrogation of
Defendant States’ election laws designed to ensure
election integrity by a few officials, and examples of
material irregularities in the 2020 election
cumulatively
warrant
exercising
jurisdiction.
Although isolated irregularities could be “gardenvariety” election disputes that do not raise a federal
question,10 the closeness of election results in swing
states combines with unprecedented expansion in the
use of fraud-prone mail-in ballots—millions of which
were also mailed out—and received and counted—
without verification—often in violation of express
state laws by non-legislative actors, see Sections
II.A.1-II.A.2, supra, call both the result and the
process into question. For an office as important as the
presidency, these clear violations of the Constitution,
coupled with a reasonable inference of unconstitutional ballots being cast in numbers that far exceed
the margin of former Vice President Biden’s vote tally
over President Trump demands the attention of this
Court.

“To be sure, ‘garden variety election irregularities’ may not
present facts sufficient to offend the Constitution’s guarantee of
due process[.]” Hunter, 635 F.3d at 232 (quoting Griffin, 570 F.2d
at 1077-79)).
10

1866 Case 2:20-cv-01771-PP Filed 12/08/20 Page 89 of 92 Document 72-2

33
While investigations into allegations of unlawful
votes being counted and fraud continue, even the
appearance of fraud in a close election would justify
exercising the Court’s discretion to grant the motion
for leave to file. Regardless, Defendant States’
violations of the Constitution would warrant this
Court’s review, even if no election fraud had resulted.
B. A ruling on the 2020 election would
preserve the Constitution and help
prevent irregularities in future
elections.
In addition to ensuring that the 2020 presidential
election is resolved in a manner consistent with the
Constitution, this Court must review the violations
that occurred in Defendant States to enable Congress
and State legislatures to avoid future chaos and
constitutional violations. Unless this Court acts to
review
this
presidential
election,
these
unconstitutional and unilateral violations of state
election laws will continue in the future.
Regardless of how the 2020 election resolves and
whatever this Court does with respect to the 2020
election, it is imperative for our system of government
that elections follow the clear constitutional mandates
for all future elections. Just as this Court in Bush II
provided constitutional guidance to all states
regarding the equal treatment of ballots from county
to county in 2000, this Court should now provide a
clear statement that non-legislative modification of
rules governing presidential elections violate the
Electors Clause. Such a ruling will discourage in the
future the kind of non-legislative election
modifications that proliferated in 2020.

1867 Case 2:20-cv-01771-PP Filed 12/08/20 Page 90 of 92 Document 72-2

34
III. REVIEW IS NOT DISCRETIONARY.
Although this Court’s original jurisdiction precedents would justify the Court’s hearing this matter
under the Court’s discretion, see Section II, supra,
Plaintiff State respectfully submits that the Court’s
review is not discretionary. To the contrary, the plain
text of § 1251(a) provides exclusive jurisdiction, not
discretionary jurisdiction. See 28 U.S.C. § 1251(a). In
addition, no other remedy exists for these interstate
challenges, see Section I.G, supra, and some court
must have jurisdiction for these weighty issues. See
Mostyn v. Fabrigas, 98 Eng. Rep. 1021, 1028 (K.B.
1774) (“if there is no other mode of trial, that alone
will give the King’s courts a jurisdiction”). As
individual Justices have concluded, the issue “bears
reconsideration.” Nebraska v. Colorado, 136 S.Ct.
1034, 1035 (2016) (Thomas, J., dissenting, joined by
Alito, J.); accord New Mexico v. Colorado, 137 S.Ct.
2319 (2017) (Thomas, J., dissenting) (same). Plaintiff
State respectfully submits that that reconsideration
would be warranted to the extent that the Court does
not elect to hear this matter in its discretion.
IV. THIS CASE WARRANTS SUMMARY
DISPOSITION OR EXPEDITED BRIEFING.
The issues presented here are neither fact-bound
nor complex, and their vital importance urgently
needs a resolution. Plaintiff State will move this Court
for expedited consideration but also suggest that this
case is a prime candidate for summary disposition
because the material facts—namely, that the COVID19 pandemic prompted non-legislative actors to
unlawfully modify Defendant States’ election laws,
and carry out an election in violation of basic voter

1868 Case 2:20-cv-01771-PP Filed 12/08/20 Page 91 of 92 Document 72-2

35
integrity statutes—are not in serious dispute.
California v. United States, 457 U.S. 273, 278 (1982);
South Carolina v. Katzenbach, 383 U.S. 301, 307
(1966). This case presents a pure and straightforward
question of law that requires neither finding
additional facts nor briefing beyond the threshold
issues presented here.
CONCLUSION
Leave to file the Bill of Complaint should be
granted.
December 7, 2020
Respectfully submitted,
Ken Paxton*
Attorney General of Texas
Brent Webster
First Assistant Attorney
General of Texas
Lawrence Joseph
Special Counsel to the
Attorney General of Texas
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kenneth.paxton@oag.texas.gov
(512) 936-1414
*

Counsel of Record

1869 Case 2:20-cv-01771-PP Filed 12/08/20 Page 92 of 92 Document 72-2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN,
Plaintiffs,
v.
WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN HUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
DEFENDANT GOVERNOR TONY EVERS’S REPLY IN SUPPORT OF HIS MOTION
TO DISMISS PLAINTIFF’S AMENDED COMPLAINT
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Post Office Box 1784
Madison, WI 53701-1784
Telephone: 608-256-0226
jmandell@staffordlaw.com
rsnyder@staffordlaw.com
rmanthe@staffordlaw.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org

1870

Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers
December 9, 2020

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 14 Document 73

INTRODUCTION
Plaintiff’s response brief, like the Amended Complaint, is rampant with wild speculation
and conspiratorial conclusions, and simply without any basis in law or fact. To make up for these
deficiencies, Plaintiff makes egregious misstatements of the law, and simply ignores standards he
does not like.
Starting with the “merits,” Defendant Evers explained in great detail why Plaintiff’s
claims are not remotely plausible, including that the factual allegations have nothing specific to
do with Wisconsin, are made by persons with no actual firsthand knowledge (of anything they
allege, let alone anything that allegedly happened in Wisconsin), and are overwhelmingly
conclusory assertions without any alleged plausible factual basis, while the “expert” allegations
are made by persons without required expertise, using either no disclosed methodology at all or
methodologies riddled with fatal flaws. (See Dkt. 59 at 20-28) Plaintiff responds to this detailed
refutation of his allegations with…nothing. He offers not a word in substantive defense of the
supposed “plausibility” of his fantastical allegations. He instead offers a short exploration of the
pleading standard for intent under Rule 9(b) (Dkt. 72 at 15-17), but that discussion has nothing to
do with Defendant Evers’ eight pages explaining the many reasons why Plaintiff’s allegations
come nowhere close to meeting the Twombly and Iqbal “plausibility” standard. Plaintiff fails
even to cite, let alone discuss, Twombly and Iqbal. This failure to even try to defend the
“plausibility” of his allegations constitutes waiver on the Rule 12(b)(6) issue, and is itself
sufficient grounds to dismiss.
Moving beyond the “merits issues” while Plaintiff does actually engage (to varying
degrees) with Defendant Evers’s other arguments for dismissal, Plaintiff’s efforts fail. Plaintiff
makes conflicting statements regarding standing, arguing that his standing stems from his status
as a presidential elector and then switches to a voter when he perceives that status as more

1871

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 14 Document 73

convenient for standing purposes. He fails to realize that, either as a voter or a presidential
elector, he has no standing. He even cites to a case to support standing, but fails to acknowledge
that the Supreme Court overruled the decision. While he seeks to shrug aside laches, he cannot
avoid the fact that he seeks to disenfranchise millions of Wisconsin voters who cast their votes in
reliance on the voting procedures in place on Election Day. He does so despite having had ample
opportunity—years, in some cases—to challenge those procedures, including Wisconsin’s use of
Dominion voting machines (though not nearly as widespread as he alleges (see Amend. Cmplt.
Exh. 5) that he claims have long been susceptible to fraud, well before those votes were cast.
Instead, Plaintiff lay in the weeds, allowing the election to take place and a full month thereafter
to pass by, refraining from participating in any of the established state-law procedures for
challenging the results, and even staying on the sidelines as Governor Evers transmitted the
certified results to the National Archives confirming Wisconsin’s Electors, before finally
asserting these claims with the Electoral College set to meet on December 14, 2020. While he
likewise gives short shrift to the mootness, Eleventh Amendment, abstention, and exclusivejurisdiction principles raised in Governor Evers’ motion, each provides an independent basis for
dismissing his claims with prejudice. Ultimately, Plaintiff cannot and does not even try to
differentiate his Wisconsin case from King v. Whitmer or Pearson v. Kemp, where judges shot
down identical lawsuits by these same lawyers on all the grounds that Defendants have here too
presented to the Court. The Wisconsin lawsuit must meet the same fate.
I.

Plaintiff Misstated Applicable Pleading Standards.
Plaintiff misleadingly cites to a pre-Twombly and Iqbal case to argue he has sufficiently

alleged constitutional violations. (Dkt. 72, at 15-16) He discusses that case, Kasper v. Bd. of
Election Com’rs of the City of Chicago, 814 F.2d 332 (7th Cir. 1987), to make an argument
about pleading standards for a defendant’s intent that has nothing to do with Defendant Evers’
3

1872

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 14 Document 73

eight-page refutation of the “plausibility” of Plaintiff’s allegations and claims. The entire
discussion is thus irrelevant to Defendant Evers’s Twombly and Iqbal arguments. By citing a preTwombly and Iqbal case, he completely ignores “the factual heft required to survive a motion to
dismiss after Twombly and Iqbal.” McCauley v. City of Chicago, 671 F.3d 611, 617 (7th Cir.
2011); see also Diedrich v. Ocwen Loan Servicing, LLC, 839 F.3d 583, 589 (7th Cir. 2016)
(stating that Twombly and Iqbal established “heightened pleading requirements”); Atkins v. City
of Chicago, 631 F.3d 823, 832 (7th Cir. 2011) (quoting In re marchFIRST Inc., 589 F.3d 901,
905 (7th Cir. 2009)) (“After Twombly and Iqbal a plaintiff to survive dismissal ‘must plead some
facts that suggest a right to relief that is beyond the speculative level.’”); Swanson v. Citibank,
N.A., 614 F.3d 400, 404 (7th Cir. 2010) (after Twombly and Iqbal, the plaintiff must “present a
story that holds together”).
Twombly and Iqbal require more than traditional notice pleading. Instead, Plaintiff must
provide particular facts that nudge his “claims across the line from conceivable to plausible.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). Plaintiff offers only wild conspiracy
theories, rank speculation, and conjecture, and his Amended Complaint completely lacks any
plausible first-hand factual or expert allegations, tied to the election in Wisconsin. Plaintiff thus
fails to establish his claims as remotely conceivable. The leaps of logic and facially bogus
theories underlying Plaintiff’s claims of a globe-spanning conspiracy—allegations of rigged
elections in Venezuela in 2009 to 2013 involving some company called “Smartmatic” that has no
apparent connection to anything in Wisconsin in 2020; software algorithms in Dominion Voting
machines that somehow (albeit without allegations providing any explanation at all, let alone a
plausible explanation) affected votes in Wisconsin counties that were won by President Trump or
used other companies’ voting machines; assertions that the fact of election results that were

4

1873

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 14 Document 73

relatively favorable to Vice President Biden in Madison and Milwaukee as compared to Oshkosh
or Stevens Point were the product of “statistical impossibilities” rather than the far more
plausible explanation that those are predominantly Democratic parts of the states; and assertions
that a so-called “survey” conducted by a former campaign staffer with no qualifications or
experience and no showing that his methodologies comported with professional standards (to the
contrary, a “survey” that on its face was methodologically fatally flawed) somehow provides a
basis for throwing out hundreds of thousands of votes cast by Wisconsinites—rightly would be
called out as ridiculous if suggested at a social event or in most Internet forums. They surely
have no place in a complaint filed in federal court. Plaintiff completely failed to respond to
Defendant Evers’s detailed Rule 12(b)(6) and 9(b) arguments explaining the utter lack of
plausibility of these allegations, and that failure alone constitutes waiver requiring dismissal. See
Bonte v. U.S. Bank, N.A., 624 F.3d 461, 465-66 (7th Cir. 2010) (complete failure to address Rule
12(b)(6) arguments constitutes waiver).
II.

Plaintiff does not have standing.
A.

Carson is irrelevant.

Plaintiff claims that an Eighth Circuit decision grants him standing to sue under the
Electors and Elections Clauses. (See Dkt. 72 at 17) He relies upon Carson v. Simon, 978 F.3d
1051 (8th Cir. 2020), a non-binding case that was specific to Minnesota law and involved a preelection challenge to Minnesota election procedures that were modified by a state court. Nothing
in Carson suggests that the Electors and Elections Clauses create post-election rights to
challenge the results of an election.
Plaintiff’s counsel made a similar argument in King v. Whitmer, 2020 WL 7134198 (E.D.
Mich.) (Dec. 7, 2020) (provided at Dkt. 51-5). The judge in King rejected that argument,
specifically finding that the Carson majority was not as persuasive as the dissenting judge. King
5

1874

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 14 Document 73

at *11. The dissent in Carson argued against standing because “the Electors are not candidates
for public office as that term is commonly understood.” 978 F.3d at 1063 Kelly, J., dissenting). It
went on to argue that presidential electors
are not presented to and chosen by the voting public for their office, but instead
automatically assume that office based on the public's selection of entirely different
individuals. But even if we nonetheless assume the Electors should be treated like
traditional political candidates for standing purposes, I question whether these particular
candidates have demonstrated the “concrete and particularized” injury necessary for
Article III standing. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992). To the contrary,
their claimed injury—a potentially “inaccurate vote tally”–—appears to be “precisely the
kind of undifferentiated, generalized grievance about the conduct of government” that the
Supreme Court has long considered inadequate for standing.

Id. In King, the court found this more convincing and stated that even if Michigan and Minnesota
law were similar, “Plaintiffs lack standing to sue under the Elections and Electors Clauses.” King
at *11. And Plaintiff only glosses over the fact that in Bognet the court found no standing despite
a plaintiff being a congressional candidate. Bognet v. Sec’y of Commonwealth, 2020 WL
6686120 at *4, *6-8 (provided at Dkt. 51-9).
Regardless of how Minnesota law treats electors, Wisconsin law makes clear that the
presidential electors have a purely ministerial role. The presidential electors do not appear on the
ballot. Contrary to Plaintiff’s misleading assertion, voters submit ballots for their presidential
candidate, not the presidential elector.
Yet even if Plaintiff were correct, and he has standing as a surrogate for President Trump
or a “candidate” himself, that does not help him because then he undoubtedly would have had to
utilize state law remedies and intervened in the recount petition that President Trump filed. Thus,
his failure to utilize state law remedies would foreclose him from bringing his claims.
B.

Plaintiff’s equal protection and due process standing arguments are in error.

Plaintiff’s argument for standing for Due Process and Equal Protection would normally
not merit any response. However, two points must be refuted. For the first time, Plaintiff says in
6

1875

Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 14 Document 73

his response brief that he voted for Donald Trump. (Dkt. 72 at 17) His Amended Complaint
contains no reference to whom he voted for in the presidential election. Thus, he cannot bring a
claim as a voter, because his Amended Complaint does not allege that he voted for Trump.
Nonetheless, if he brings his state claims (which he tries to disguise as constitutional claims) as a
voter, then he must exhaust his exclusive, state-administrative remedy under Wis. Stat. § 5.06.
Second, Plaintiff cites Whitford v. Nichol, 151 F.Supp.3d 918 (W.D. Wis. 2015), to argue
voters have standing for “state laws that collectively reduce the value of one party[].” (Dkt. 72 at
20) He neglects to mention that the case was appealed and the Supreme Court rejected the same
theory of Article III standing as plaintiff advances. See Gill v. Whitford, 138 S. Ct. 1916, 1921
(U.S. 2018). Arguing that the case somehow creates standing for Plaintiff in this case is an
egregious misstatement of the law. Consequently, he can point to no decision where similar
plaintiffs had standing. Again, Bognet is instructive because it found a similar concept of vote
dilution as argued by Plaintiff here “is not a concrete harm under the Equal Protection Clause of
the Fourteenth Amendment.” Bognet at *11.
III.

Plaintiff’s Complaint is Barred by Laches
As a foundational matter, Plaintiff asserts that “ordinarily, a motion to dismiss is not the

appropriate vehicle to address the defense of laches.” (Dkt. 72 at 22 (quoting Am. Commercial
Barge Lines, LLC v. Reserve FTL, Inc., 2002 WL 31749171, at *1 (N.D. Ill. Dec. 3, 2002))1
(emphasis added)) But what Plaintiff ignores is that the same case qualifies this statement, noting
that most courts have found the defense of laches unsuitable at the pleading stage “unless laches
is apparent on the face of the complaint.” Am. Commercial Barge Lines, LLC, 2002 WL

Pursuant to Civil L. R. 7(j)(2), all unpublished cases, orders, and dispositions cited are filed in
conjunction with this brief.
1

7

1876

Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 14 Document 73

31749171, at *1 (citation omitted). In this case, laches is most certainly apparent on the face of
the complaint, and the circumstances giving rise to this case are far from ordinary.
Despite Plaintiff’s assertion that he could not have known the basis of his claims earlier
than he did (Dkt. 72 at 22-23), Plaintiff’s own pleadings prove that assertion is false. Plaintiff’s
Amended Complaint is based on alleged violations of Wisconsin election laws stemming from
the use of Dominion Voting Machines and guidance issued by the Wisconsin Elections
Commission. It is apparent on the face of the Amended Complaint that Plaintiff knew about
these longstanding practices, including the use of Dominion Voting Machines, for months and, in
some cases, years before the general election on November 3, 2020. (See Amend. Cmplt. ¶¶3745, 64-68; see also Dkt. 59 at 17-18) Plaintiff’s claims are based on assumptions Plaintiff makes
about how alleged problems with these machines and this guidance must have resulted in
improper counting of votes. Yet having known about these alleged problems with the machines
and the guidance well before the election, Plaintiff was obligated to raise his complaints about
the machines and the guidance then, before millions of voters had cast their ballots in reliance on
the guidance and using these machines.
Moreover, the nature of the allegations in the Amended Complaint and the audacity of
the requested relief compel the conclusion that this case is certainly not ordinary. In several other
recent cases like this one, the lateness of the filings and the prejudice to the defendants and to the
voting public have been so obvious that courts around the country are dismissing on the bases of
laches. King, Op. & Order, at *6; Wood v. Raffensberger, No. 1:2020-cv-04651-SDG, 2020 WL
6817513, at *8 (N.D. Ga. Nov. 20, 2020), aff’d, 2020 WL 7094866, at *6 (11th Cir. Dec. 5,
2020) (provided at Dkt. 51-3, 51-4).

8

1877

Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 14 Document 73

Finally, Plaintiff’s attempt to attribute delay to Defendants’ failure to promptly complete
ballot counting after Election Day is preposterous. First, Wisconsin did not certify the election
results until November 30, 2020, because a recount was requested by the Trump campaign and
promptly conducted by Dane and Milwaukee Counties. To the extent that Plaintiff asserts his
standing is the same as the candidate for whom he is a presidential elector (which it is not), any
delay caused by the recount must be attributed to the candidate, and by extension to Plaintiff.
Second, Plaintiff points to no law that required him to wait until after completion of the recount
and certification to file this federal court lawsuit. To be sure, this lawsuit is entirely improper, as
Plaintiff should have used the available, exclusive state-law procedures. But having wrongly
eschewed those procedures, Plaintiff cannot point to their unique requirements to justify his own
hugely prejudicial delay in filing this lawsuit (especially given that one of the two procedures—
the administrative complaint procedure available to regular voters—does not require that the
voter wait until after certification to file a complaint, Wis. Stat. § 5.06(1)). Having decided to file
in federal court rather than in either of the proper exclusive state forums, and having known
about the basis for his claims for weeks, months, and sometimes years, Plaintiff’s lengthy delay
in filing is wholly unjustified and ample grounds for invoking laches to dismiss this case.
IV.

Plaintiff’s Requests for Relief are Moot.
Despite Plaintiff’s assertions to the contrary, “a case is moot where the court lacks ‘the

ability to give meaningful relief[.]’” King, Op. & Order, at *13 (citing Sullivan v. Benningfield,
920 F.3d 401, 410 (6th Cir. 2019)). Presumably, all of Plaintiff’s requests for relief are targeted
to invalidate the results of the general election in order to declare President Trump the winner of
Wisconsin’s electoral votes. From that perspective, it is apparent that Plaintiff’s requests for
relief are moot. In part, Plaintiff asks this Court to “de-certify the election results,” to enjoin
“Governor Evers from transmitting the currently certified election results [to] the Electoral
9

1878

Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 14 Document 73

College,” and to order “Governor Evers to transmit certified election results that state President
Donald Trump is the winner of the election.” (Amend. Cmplt. ¶42) But, the Court has no
authority to simply declare an alternative winner of an election; an injunction cannot stop the
Governor from transmitting the election results to the federal government because that was
already done before Plaintiff filed his Amended Complaint; and there is no legal mechanism for
the de-certification of the election results. While the exclusive state procedure for contesting
election results holds open the possibility for relief, see Wis. Stat. §§ 9.01(6) & (9), any efforts to
obtain relief in federal court are not only barred by the exclusive state procedure, but were
rendered moot by the certification of election results.
V.

The Eleventh Amendment Bars Plaintiff’s Complaint.
Governor Evers does not dispute that the Eleventh Amendment permits prospective

injunctive relief against state officials on the basis of federal law. But Plaintiff ignores the
requisite latter part of that sentence. Where claims are based on state law, the Eleventh
Amendment bars all relief, “whether prospective or retroactive.” Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 106 (1984). That restriction applies even where, as here, Plaintiff
cloaks his state-law claims in federal garb. (Dkt. 59 at 15 (citing cases)) Plaintiff’s Elections and
Electors Clause claim is based on Defendants purportedly exercising electoral authority in ways
that “conflict with existing legislation” enacted by the Wisconsin Legislature. (Amend. Cmplt.
¶103) Likewise, his Equal Protection Clause claim hinges on Defendants’ alleged failure to
“enforce[] fairly and uniformly” Wisconsin’s election laws, claiming that because “Defendants
failed to comply with the requirements of the Wisconsin Election Code,” his vote was diluted in
violation of the Equal Protection Clause. (Id. ¶¶115-16 (emphasis added)) Count III alleges a
Due Process Clause violation based on so-called “vote dilution.” This, too, has no actual basis in
federal law; rather, it is grounded in Plaintiff’s state-law-based allegations regarding ballot
10

1879 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 14 Document 73

counting. (Id. ¶¶123-29) In short, Plaintiffs cannot escape the Eleventh Amendment’s bar by
simply slapping a “federal claim” label on what are ultimately questions of state law.
VI.

Plaintiff’s Remedies are Controlled by State Law.
The Wisconsin Legislature has prescribed the process for the filing, review, and

adjudication of claims of election-related misconduct, which begins with administrative review
by the WEC. Wis. Stat. §§ 5.05(2m), 5.06. The Wisconsin Legislature has also determined that
claims challenging the results of an election based on alleged irregularities and defects in the
voting process are exclusively determined through the recount statute. Wis. Stat. § 9.01(11).
Plaintiff attempts to circumvent these procedures and inappropriately invoke federal jurisdiction.
In Count IV of his Amended Complaint, Plaintiff states that “Defendants intentionally violated
multiple provisions of the Wisconsin Election Code to elect Biden and other Democratic
candidates and defeat President Trump and other Republican candidates.” (Amend. Cmplt. ¶137
(emphasis added)) Moreover, Section I of the Amended Complaint, which is incorporated into
Counts I through III of the Amended Complaint (see id. ¶¶104-06, 116, 129) details only state
law violations (see id. ¶¶37-45).
Plaintiff could have filed a complaint with the WEC under Wis. Stat. §§ 5.05(2m) or
5.06. Or, to the extent that Plaintiff alleges that he has standing on par with candidate President
Trump (which he does not), he should have intervened in the recount requested by President
Trump, the results of which are currently being appealed. Plaintiff’s allegations here are
precisely the sorts of claims captured by the Wisconsin statutory processes review. He alleges
election official misconduct, which is subject to review under Wis. Stat. § 5.06, and he alleges
irregularities or defects in the voting process, which are subject to challenge only via the recount
process under Wis. Stat. § 9.01.

11

1880 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 14 Document 73

Federal jurisdiction is not available to circumvent the Wisconsin Legislature’s designated
forums for challenging the conduct of an election or its results simply by bootstrapping concerns
about the constitutional right to vote onto any election-related cause of action. Moreover, if
Plaintiff is not required to avail himself of state requirements for challenging election conduct
and instead may proceed in federal court, what is there to stop other disappointed voters or
candidates from filing lawsuit after lawsuit until January 20 (if not beyond)? Such a result would
further destabilize our democracy and undermine the will of Congress, the Wisconsin
Legislature, and, above all, the will of Wisconsin’s voters.
VII.

Abstention Doctrines Apply to Plaintiff’s Complaint.
Plaintiff asserts that abstention is not appropriate here because the Wisconsin Supreme

Court declined to grant original jurisdiction over a separately filed case that alleges many of the
same state law violations alleged by Plaintiff. (Dkt. 72 at 29) He concludes that because the
Wisconsin Supreme Court issued its denial, the Court refuses to resolve the state law issues. (Id.
at 29-30) Thus, he argues, it is entirely appropriate for this federal Court to exercise jurisdiction
over this matter because “there is no current state court proceeding addressing these issues.” (Id.
at 30) This conclusion is wrong for two reasons. First, Plaintiff ignores the fact that the
Wisconsin Supreme Court refused to exercise original jurisdiction over the claims not because it
refused to interpret state law, but because the petition was “woefully deficient” and therefore not
appropriate for the Court to take up. Wis. Voters Alliance v. Wis. Elections Comm’n, No.
2020AP1930-OA, Order at *3 (Wis. Dec. 4, 2020) (Hagedorn, J. concurring in denial of petition
for original action, joined by a majority of the Justices) (noting that one reason petition for
original action was “woefully deficient” was because it failed to “consider the import of election
statutes that may provide the ‘exclusive remedy,’” namely, Wis. Stat. §§ 5.05(2m) and 9.01)

12

1881 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 14 Document 73

(provided at Dkt. 55-1). Failure on the part of petitioners in a state case to sufficiently plead does
not render the doctrine of abstention inapplicable.
Second, as noted above, while the Wisconsin Supreme Court refused original jurisdiction,
it is simply not true that no Wisconsin court is willing to review these state-law issues. To the
contrary, a recount which alleges many of the same state law claims is currently being appealed
in a Wisconsin trial court. Thus, state courts are currently addressing the issues cited by Plaintiff,
and this Court should abstain from exercising jurisdiction over Plaintiff’s complaint.
CONCLUSION
As the Third Circuit recently held, “[v]oters, not lawyers, choose the President. Ballots,
not briefs, decide election.” Donald J. Trump for President, Inc. v. Sec’y of the Commonwealth
of Pa., No. 20-3371, 2020 WL 7012522, at *9 (3d Cir. Nov. 27, 2020). Like other cases that
have been brought in the wake of the 2020 election, Plaintiff’s case is nothing more than an
effort to win through litigation or legislative fiat a result that could not be won at the polls. This
unconscionable attack on American democracy cannot be permitted to proceed any further.
Plaintiff’s claims should be dismissed with prejudice.

Respectfully submitted this 9th day of December 2020.
/s/ Jeffrey A. Mandell
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rsnyder@staffordlaw.com
Email: rmanthe@staffordlaw.com
13

1882 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 14 Document 73

Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
Telephone: (202) 736-2200
psmith@campaignlegalcenter.org
Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
Telephone: 713-651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Attorneys for Defendant,
Governor Tony Evers

14

1883 Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 14 Document 73

EXHIBIT 1

1884

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 5 Document 73-1

American Commercial Barge Lines, LLC. v. Reserve FTL, Inc., Not Reported in...
2002 WL 31749171

2002 WL 31749171
Only the Westlaw citation is currently available.
United States District Court,
N.D. Illinois, Eastern Division.

AMERICAN COMMERCIAL
BARGE LINES, LLC., a Delaware
Limited Liability Company, Plaintiff,
v.
RESERVE FTL, INC., an Ohio
corporation, d/b/a Reserve
Marine Terminal, Defendant.
No. 01 C 5858.
|
Dec. 3, 2002.

MEMORANDUM OPINION AND ORDER
HIBBLER, J.
*1 This admiralty and maritime action arises out of the
sinking of a barge owned by Plaintiff American Commercial
Barge Lines, L.L.C. (“ACBL”), while docked in a wharf
operated by Defendant Reserve FTL, Inc. (“Reserve”).
Although the sinking incident occurred in 1994, ACBL did
not file this lawsuit against Reserve, alleging negligence,
breach of Stevedore's duty and bailment, until July 2001.
Reserve now moves to dismiss ACBL's complaint pursuant
to Fed.R.Civ.P. 12(b)(6) based on the equitable defense
of laches. For the following reasons, the Court concludes
Reserve's motion to dismiss must be converted to a motion
for summary judgment under Fed.R.Civ.P. 56(c), and holds
that, at this stage in the litigation, the request for summary
judgment is premature.

STANDARD OF REVIEW
Before turning to the particulars of the case, it is necessary
to first consider whether Reserve's motion seeks relief under
Rule 12(b)(6) or Rule 56(c). Ordinarily a motion to dismiss
is not the appropriate vehicle to raise the defense of laches.
See Farries v. Stanadyne/Chicago Div., 832 F.2d 374, 376
(7th Cir.1987) (upholding district court's conversion of Rule

1885

12(b)(6) motion to a Rule 56(c) motion); Svec v. Board of
Trustees of Teamsters Local Union No. 727 Pension Fund,
No., 02C1640, 2002 WL 1559640, at *2 (N.D.Ill. July 16,
2002); Abbott Labs. v. CVS Pharmacy, Inc., Nos. 01C2772 &
01C2784, 2001 WL 777060, at *3 (N.D.Ill. July 11, 2001).
Indeed, “the defense of laches ... involves more than the mere
lapse of time and depends largely upon questions of fact.”
5 CHARLES ALAN WRIGHT & ARTHUR R. MILLER,
FEDERAL PRACTICE AND PROCEDURE § 1277 (2d
ed.1987). As such, unless laches is apparent on the face of
the complaint, most courts have found the defense “unsuitable
for resolution at the pleading stage.” Abbott Labs., 2001 WL
777060, at *3–4.
While Reserve styled its motion as a request for dismissal
for failure to state a claim, in support of the argument that
the elements of laches (i.e., inexcusable delay and undue
prejudice) are present in this case, Reserve also submitted for
consideration documents that fall outside the four corners of
the complaint. According to Rule 12(b), whenever “matters
outside the pleadings are presented to and not excluded by
the court, [a 12(b)(6) ] motion shall be treated as one for
summary judgment and disposed of as provided in Rule
56, and all parties shall be given reasonable opportunity to
present all material made pertinent to such motion by Rule
56.” ACBL then responded to Reserve's motion by presenting
two volumes of exhibits in its defense, as well as a First
Amended Complaint setting forth further details about the
events that transpired between the parties prior to the filing of
this lawsuit. Reserve, in its reply, noted that ACBL appeared
to be treating the motion as one for summary judgment, and
thus explained that it intended to attack the sufficiency of
ACBL's pleadings. Nevertheless, Reserve attached several
exhibits—deposition transcripts and affidavits—to the reply
in support of its motion.
*2 It is clear, then, that regardless of the title on the motion,
the parties have proceeded as if the Court were considering
the propriety of summary judgment. Indeed, each side has
relied heavily upon discovery materials to substantiate its
argument on the laches question. Consequently, the Court
believes it appropriate to convert Reserve's motion to dismiss
to a motion for summary judgment, and decide if the record
shows there is no genuine issue as to any material fact and
Reserve is entitled to judgment as a matter of law on its
claim that ACBL's suit is barred by laches. See Celotex Corp.
v. Catrett, 477 U.S. 317, 322 (1986); Fed.R.Civ.P. 56(c).
In making this determination, the Court views all facts and
inferences in the light most favorable to the non-moving party.

Case
Filedto12/09/20
2 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

73-1

1

American Commercial Barge Lines, LLC. v. Reserve FTL, Inc., Not Reported in...
2002 WL 31749171

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 246 (1986).
Further, a genuine issue of material fact will be found to
exist where the dispute over facts might affect the outcome of
the lawsuit and there is sufficient evidence to support a jury
verdict for the nonmoving party. Id. at 248.

BACKGROUND1
This controversy arose on October 26, 1994, when a barge
owned by ACBL that was docked at or near Reserve's wharf
and under Reserve's exclusive care, custody and control for
the purpose of loading cargo of metal slag, sank. Shortly
thereafter, ACBL prepared a notice of claim and sent it to Mr.
Hal Tolin (“Tolin”) at Reserve. In addition, ACBL engaged
the law firm of Keck, Mahin and Cate (“Keck”) to represent
its interests in the claims process.

ANALYSIS
*3 “The doctrine of laches is derived from the maxim that
those who sleep on their rights, lose them.” Chattanoga Mfg.,
Inc. v. Nike, Inc., 301 F.3d 789, 792 (7th Cir.2002). Indeed,
the equitable defense of laches is “concerned principally with
the fairness of permitting a claim to be enforced.” Zelazny v.
Lyng, 853 F.2d 540, 541 (7th Cir.1988). Illinois law imposes
a five year statute of limitations for suits to recover for
property damages. See 735 ILCS 5/13–205. Further, the cause
of action accrues and the statute of limitations begins to run
when there is actual knowledge that both a physical problem
exists and that someone may be at fault for its existence. See
Carey v. Kerr–McGee Chem. Corp., 999 F.Supp. 1109, 1115
(N.D.Ill.1998).

In April 1995, Paul Tobin (“Tobin”), a claims adjuster
at MG Bush & Associates, Inc. (“MG Bush”), informed
ACBL's assigned claims representative for the file, Larry
Grieb (“Grieb”), that all matters concerning the Barge sinking
should be directed to his attention, as MG Bush was adjusting
the claim on behalf of Reserve's insurer. Tobin also stated
that he expected the parties should be able to resolve the
claim “amicably.” Tobin likewise indicated to Michael Ash,
Grieb's supervisor, that he believed Reserve's underwriters
intended to resolve the claim without litigation. In June and
September 1995, Tobin wrote to ACBL inquiring if its claim
for damages had been formulated, and stating that Reserve
“would like every opportunity to amicably resolve this claim
short of litigation, if at all possible.”

It is undisputed that ACBL submitted notice to Reserve of a
possible claim shortly after the sinking of the barge in October
1994, but that ACBL did not file this lawsuit until July 2001,
six years and nine months later. Because the analogous state
statute of limitations governing ACBL's damages claim has
run, there is a presumption that this action is barred under the
doctrine of laches. See Hot Wax, Inc. v. Turtle Wax, Inc., 191
F.3d 813, 821 (7th Cir.1999); Conopco, Inc. v. Campbell Soup
Co., 95 F.3d 187, 191 (2d Cir.1996). Nevertheless, to prevail
on its laches defense here, Reserve must demonstrate: 1) an
unreasonable lack of diligence by ACBL in bringing suit; and
2) prejudice arising from that delay. See e.g., Hot Wax, Inc.,
191 F.3d at 822.

It appears that ACBL and MG Bush did not correspond
further concerning the claim until December 1997, when
ACBL finally sent a claims package to Tobin. Receiving
no response from Tobin at MG Bush, ACBL forwarded the
claims package directly to Tolin at Reserve in January 1998.
In early March 1998, John Stickling, a senior adjuster at
MG Bush, wrote ACBL requesting further information with
respect to the damages claim.

A. Unreasonable Lack of Diligence

In July 1999, ACBL sent MG Bush the additional materials
sought and responded to the questions posed. MG Bush
replied that the claim was being forwarded to defense counsel
for review, and reiterated a desire to settle the matter without
resorting to litigation. After further unsuccessful attempts to
follow up with MG Bush regarding the status of the claim,
ACBL filed this action in July 2001.

1886

Reserve argues that ACBL's delay in filing this lawsuit—
almost two years after the expiration of the analogous state
limitations period—is inexcusable. ACBL counters that its
delay should be excused because it was lulled into inaction
by the representations of MG Bush, on behalf of Reserve, of
an intent to resolve the dispute without resorting to litigation.
ACBL focuses primarily on the July 1999 letter, which states
not only that the additional information requested had been
received and the claim was under review, but also expresses a
desire to settle rather than litigate the matter. ACBL maintains
Reserve should be equitably estopped from raising the laches
defense because this representation, made only three months
prior to the expiration of the five year statute of limitations,
induced ACBL to forgo filing a lawsuit.

Case
Filedto12/09/20
3 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

73-1

2

American Commercial Barge Lines, LLC. v. Reserve FTL, Inc., Not Reported in...
2002 WL 31749171

ACBL correctly states that the Seventh Circuit has indicated
“attempts to resolve a dispute without resorting to a court
do not constitute unreasonable delay.” Leonard v. United Air
Lines, Inc., 972 F.2d 155, 158 (7th Cir.1992). However, that
rule was invoked in a case where the court specifically noted
that the time plaintiff spent pursuing internal administrative
remedies to recover lost pension benefits should be excluded
from the delay analysis. See id. The situation here is
clearly distinguishable. Consequently, ACBL must produce
sufficient evidence to demonstrate it was induced to forbear
litigation until after the statute of limitations had expired.
*4 Even construing all the facts in ACBL's favor as it
must, the Court finds ACBL's claim of excusable delay
weak. The representations ACBL claims to have relied upon
express nothing more than a desire for amicable settlement.
Unlike United States v. Continental Cas. Co., 357 F.Supp.
795, 800 (E.D.La.1983), a case relied upon by ACBL, the
record does not reflect any promises by Reserve to pay
out the claim at the conclusion of its investigation. Nor is
there any evidence of actual settlement efforts or negotiations
between the parties concerning the amount of damages, as
in Windjammer Cruises, Inc. v. Paradise Cruises, Ltd., No.
93–00190ACK, 1993 WL 732431, at *3 (D. Hawaii June 8,
1993), another case ACBL points to as supporting authority
for its position. Furthermore, those representations were first
made within a year after Reserve received notice of the claim,
and then again almost four years later after MG Bush had
finally obtained all of the information it needed to fully
consider the damages claim. Thus, there is no evidence of
ongoing discussions throughout the limitations period about
forthcoming payment or settlement that would permit the
Court to infer ACBL was induced not to act until almost two
years after the statute of limitations had expired. See e.g.,
United States v. Reliance Ins. Co., 436 F.2d 1366, 1370 (10th
Cir.1971). However, notwithstanding the Court's concerns
about ACBL's diligence in asserting its legal rights here, it is
not necessary to decide if the delay was excusable since laches
will not apply, even in the face of inexcusable delay, unless
there is also a showing of prejudice as a result of the delay.
See Hot–Wax, 191 F.3d at 824.

B. Resultant Prejudice
Prejudice “ensues when a defendant has changed his position
in a way that would have occurred if the plaintiff had not
delayed.” Conopco, Inc. v. Campbell Soup Co., 95 F.3d 187,

1887

192 (2nd Cir.1996). Reserve maintains that due to ACBL's
delay in filing its lawsuit, an evidentiary prejudice arises
because it will be unable to put on a fair defense in light of
the passage of time. Specifically, Reserves argues that it has
changed its records storage systems, facilities and most of
its employees since these claims accrued, and that necessary
records have been lost or destroyed in the regular course of
business. As a result, Reserve claims, it has been unable to
identify and locate both documents and witnesses.
In response, ACBL counters that MG Bush thoroughly
investigated the claim when the barge sank and the results
of that investigation have been preserved in a written report
which was produced in discovery. Indeed, the report identifies
all employees who were involved in any fashion in the
incident, and sets forth detailed interviews of the witnesses,
thereby preserving their recollection of the events, as well as
their dates of birth and social security numbers. Moreover,
Carrier Marine, Inc., which acted as a marine surveyor
on behalf of Reserve after the sinking and was present
throughout the salvage efforts of the barge, also took detailed
notes concerning the damage to the barge, the position of
the barge after sinking, and the disposition of the cargo in
the barge as a result of the incident, all of which have been
produced in discovery.
*5 Given the availability of the written report and surveyor's
notes, the Court cannot say, as a matter of law, that Reserve
has established an inability to defend this action. See e.g.,
Turner v.. American Dredging Co., 407 F.Supp. 1047, 1053
(E.D.Penn.1976). Certainly there are some witnesses whose
memories of this incident will have dimmed, but that
possibility, standing alone, is not enough to find resultant
prejudice, particularly since detailed statements from many
key witnesses have been preserved.
The Court recognizes discovery has only begun in this case
and that other facts may come to light that bear on the issue
of prejudice to Reserve. Consequently, the Court will not
preclude Reserve from asserting a laches defense at a more
appropriate time when the record has been developed further.
However, upon consideration of the limited record that
currently exists, the Court finds it insufficient to demonstrate
that ACBL's delay in filing this lawsuit to recover damages for
the sunken barge warrants application of the laches defense.
Reserve's motion for summary judgment is therefore denied.
IT IS SO ORDERED.

Case
Filedto12/09/20
4 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

73-1

3

American Commercial Barge Lines, LLC. v. Reserve FTL, Inc., Not Reported in...
2002 WL 31749171

All Citations
Not Reported in F.Supp.2d, 2002 WL 31749171

Footnotes

1

The parties usually set out the material undisputed facts in their Local Rule 56.1 statements. See N.D. Illinois L.R. 56.1.
However, in light of the procedural posture of this case, the Court will look to the complaint and the motions papers to
ascertain the relevant factual contentions.

End of Document

1888

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

Case
Filedto12/09/20
5 of 5 Works.
Document
©
2020 2:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government

73-1

4

EXHIBIT 2

1889 Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 11 Document 73-2

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

2020 WL 7012522
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued
on or after Jan. 1, 2007. See also U.S.Ct. of
Appeals 3rd Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.

DONALD J. TRUMP FOR
PRESIDENT, INC.; Lawrence Roberts;
David John Henry, Appellants
v.
SECRETARY Commonwealth OF
PENNSYLVANIA; Allegheny County
Board of Elections; Centre County
Board of Elections; Chester County
Board of Elections; Delaware County
Board of Elections; Montgomery County
Board of Elections; Northampton
County Board of Elections;
Philadelphia County Board of Elections
No. 20-3371
|
Submitted Under Third Circuit
L.A.R. 34.1(a) on November 25, 2020
|
(Filed: November 27, 2020)
Synopsis
Background: Voters and President's reelection campaign
brought action against Secretary of the Commonwealth
of Pennsylvania and county boards of elections, seeking
to invalidate millions of votes cast by Pennsylvanians in
presidential election during COVID-19 pandemic based on
allegations that Secretary's authorization of notice-and-cure
procedure for procedurally defective mail-in ballots violated
the Equal Protection Clause and that poll watchers were
impermissibly excluded from canvass. The United States
District Court for the Middle District of Pennsylvania,
Matthew W. Brann, J., 2020 WL 6821992, granted motion by

Secretary and county boards of elections to dismiss. Voters
and campaign appealed.

Holdings: The Court of Appeals, Bibas, Circuit Judge, held
that:
delay by President's reelection campaign in moving to amend
complaint second time was undue;
second amendment of complaint would have been futile;
county-to-county variations in processing votes from election
did not show discrimination;
failure of President's reelection campaign to request
injunction pending appeal from district court or show that
it could not have made that request barred campaign from
pursuing that motion on appeal;
campaign likely could not succeed on merits;
campaign likely would not suffer irreparable harm; and
granting relief would not have been equitable.
Affirmed.
On Appeal from the United States District Court for the
Middle District of Pennsylvania (D.C. No. 4:20-cv-02078),
District Judge: Honorable Matthew W. Brann
Attorneys and Law Firms
Brian C. Caffrey, Esq., Keith E. Kendall, Esq., Marc A.
Scaringi, Esq., Scaringi & Scaringi, Harrisburg, PA, Rudolph
W. Giuliani, Esq., New York, NY, for Plaintiffs-Appellants
Barry H. Berke, Esq., Dani R. James, Esq., Kramer Levin
Naftalis & Frankel, New York, NY, Nicole J. Boland, Esq.,
Stephen Moniak, Esq., Keli M. Neary, Esq., Karen M.
Romano, Esq., Office of Attorney General of Pennsylvania,
Harrisburg, PA, Daniel T. Brier, Esq., John B. Dempsey,
Esq., Donna A. Walsh, Esq., Myers Brier & Kelly, Scranton,
PA, Dani R. James, Esq., Kramer Levin Naftalis &
Frankel, New York, NY, for Defendant - Appellee Secretary
Commonwealth of Pennsylvania

Filedto12/09/20
2 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1890 Case

1

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

Mark A. Aronchick, Esq., John Coit, Esq., Michele D.
Hangley, Esq., John B. Hill, Esq., Christina Matthias, Esq.,
Robert A. Wiygul, Esq., Hangley Aronchick Segal Pudlin &
Schiller, Philadelphia, PA, Stephen H. Barrett, Esq., Brian H.
Benjet, Esq., Ilana H. Eisenstein, Esq., Ben C. Fabens-Lassen,
Esq., Rachel A.H. Horton, Esq., Danielle T. Morrison, Esq.,
Jayne A. Risk, Esq., DLA Piper, Philadelphia, PA, Virginia
S. Scott, Esq., Andrew F. Szefi, Esq., Office of Allegheny
County, Law Department, Pittsburgh, PA, for Defendant Appellee Allegheny County Board of Elections
Mark A. Aronchick, Esq., John Coit, Esq., Michele D.
Hangley, Esq., John B. Hill, Esq., Christina Matthias,
Esq., Robert A. Wiygul, Esq., Hangley Aronchick Segal
Pudlin & Schiller, Philadelphia, PA, Stephen H. Barrett,
Esq., Brian H. Benjet, Esq., Ilana H. Eisenstein, Esq.,
Ben C. Fabens-Lassen, Esq., Rachel A.H. Horton, Esq.,
Danielle T. Morrison, Esq., Jayne A. Risk, Esq., DLA Piper,
Philadelphia, PA, for Defendants-Appellees Chester County
Board of Elections, Montgomery County Board of Elections,
Philadelphia County Board of Elections
Elizabeth A. Dupuis, Esq., Molly E. Meacham, Esq., Babst
Calland, State College, PA, for Defendant-Appellee Centre
County Board of Elections
Timothy P. Brennan, Esq., Brian Jeffrey Taylor, Northampton
County Office of the Solicitor, Easton, PA, Molly
E. Meacham, Esq., Babst Calland, Pittsburgh, PA, for
Defendant-Appellee Northampton County Board of Elections
Terence M. Grugan, Esq., Timothy D. Katsiff, Esq., Edward
D. Rogers, Esq., Elizabeth V. Wingfield, Esq., Ballard Spahr,
Philadelphia, PA, Molly E. Meacham, Esq., Babst Calland,
Pittsburgh, PA, for Defendant-Appellee Delaware County
Board of Elections
Adriel I. Cepeda Derieux, Esq., Sophia Lin Lakin, Esq.,
American Civil Liberties Union, New York, NY, Witold J.
Walczak, Esq., American Civil Liberties Union, Pittsburgh,
PA, Claudia De Palma, Esq., Benjamin D. Geffen, Esq.,
Mary M. McKenzie, Esq., Public Interest Law Center
of Philadelphia, Philadelphia, PA, Jon M. Greenbaum,
Esq., Lawyers' Committee for Civil Rights Under Law,
Washington, DC, David M. Zionts, Esq., Covington
& Burling, Washington, DC, for Intervenor-DefendantsAppellees Joseph Ayeni, Black Political Empowerment
Project, Common Cause of Pennsylvania, Stephanie Higgins,
Meril Lara, League of Women Voters of Pennsylvania,
Ricardo Morales, Pennsylvania State Conference of NAACP

Branches, Natalie Price, Tim Stevens, Taylor Stover, Lucia
Gajda
Marc E. Elias, Esq., Ariel B. Glickman, Esq., Laura Hill, Esq.,
Lalitha D. Madduri, Esq., Uzoma N. Nkwonta, Esq., Perkins
Coie, Washington, DC, Seth P. Waxman, Esq., Wilmer Cutler
Pickering Hale & Dorr, Washington, DC, for IntervenorDefendant - Appellee Democratic National Committee
Remy Green, Esq., Cohen Green, Ridgewood, NY, for
Amicus Appellee Democrats Abroad
James P. DeAngelo, Esq., McNees Wallace & Nurick,
Harrisburg, PA, for Amicus Curiae Christine T. Whitman
Matthew Stiegler, Esq., Law Office of Matthew Stiegler,
Philadelphia, PA, for Amicus Appellee Erwin Chemerinsky
Before: SMITH, Chief Judge, and CHAGARES and BIBAS,
Circuit Judges

OPINION*
BIBAS, Circuit Judge.
*1 Free, fair elections are the lifeblood of our democracy.
Charges of unfairness are serious. But calling an election
unfair does not make it so. Charges require specific
allegations and then proof. We have neither here.
The Trump Presidential Campaign asserts that Pennsylvania's
2020 election was unfair. But as lawyer Rudolph Giuliani
stressed, the Campaign “doesn't plead fraud. ... [T]his is not
a fraud case.” Mot. to Dismiss Hr'g Tr. 118:19–20, 137:18.
Instead, it objects that Pennsylvania's Secretary of State and
some counties restricted poll watchers and let voters fix
technical defects in their mail-in ballots. It offers nothing
more.
This case is not about whether those claims are true. Rather,
the Campaign appeals on a very narrow ground: whether
the District Court abused its discretion in not letting the
Campaign amend its complaint a second time. It did not.
Most of the claims in the Second Amended Complaint boil
down to issues of state law. But Pennsylvania law is willing
to overlook many technical defects. It favors counting votes
as long as there is no fraud. Indeed, the Campaign has already
litigated and lost many of these issues in state courts.

Filedto12/09/20
3 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1891 Case

2

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

The Campaign tries to repackage these state-law claims as
unconstitutional discrimination. Yet its allegations are vague
and conclusory. It never alleges that anyone treated the Trump
campaign or Trump votes worse than it treated the Biden
campaign or Biden votes. And federal law does not require
poll watchers or specify how they may observe. It also says
nothing about curing technical state-law errors in ballots.
Each of these defects is fatal, and the proposed Second
Amended Complaint does not fix them. So the District Court
properly denied leave to amend again.
Nor does the Campaign deserve an injunction to undo
Pennsylvania's certification of its votes. The Campaign's
claims have no merit. The number of ballots it specifically
challenges is far smaller than the roughly 81,000-vote margin
of victory. And it never claims fraud or that any votes were
cast by illegal voters. Plus, tossing out millions of mail-in
ballots would be drastic and unprecedented, disenfranchising
a huge swath of the electorate and upsetting all down-ballot
races too. That remedy would be grossly disproportionate to
the procedural challenges raised. So we deny the motion for
an injunction pending appeal.

I. Background
A. Pennsylvania election law
In Pennsylvania, each county runs its own elections. 25 Pa.
Stat. § 2641(a). Counties choose and staff polling places. §
2642(b), (d). They buy their own ballot boxes and voting
booths and machines. § 2642(c). They even count the votes
and post the results. § 2642(k), (l). In all this, counties
must follow Pennsylvania's Election Code and regulations.
But counties can, and do, adopt rules and guidance for
election officers and electors. § 2642(f). And they are charged
with ensuring that elections are “honestly, efficiently, and
uniformly conducted.” § 2642(g).
1. Poll watchers and representatives. Counties must admit
qualified poll “watchers” to observe votes being tallied. 25
Pa. Stat. § 2650(a). Poll watchers must be registered to vote in
the county where they will serve. § 2687(b). Each candidate
can pick two poll watchers per election district; each political
party, three. § 2687(a). The poll watchers remain at the
polling place while election officials count in-person ballots.
§ 2687(b). They can ask to check voting lists. Id. And they
get to be present when officials open and count all the mailin ballots. § 3146.8(b). Likewise, candidates’ and political
parties’ “representatives” may be present when absentee

and mail-in ballots are inspected, opened, or counted, or
when provisional ballots are examined. §§ 2602(a.1), (q.1),
3050(a.4)(4), 3146.8(g)(1.1) & (2); see also § 3050(a.4)(12)
(defining provisional ballots as those cast by voters whose
voter registration cannot be verified right away).
*2 Still, counties have some control over these poll watchers
and representatives. The Election Code does not tell counties
how they must accommodate them. Counties need only allow
them “in the polling place” or “in the room” where ballots are
being inspected, opened, or counted. §§ 2687(b), 3050(a.4)
(4), 3146.8(g)(1.1) & (2). Counties are expected to set up “an
enclosed space” for vote counters at the polling place, and
poll watchers “shall remain outside the enclosed space.” §
2687(b). So the counties decide where the watchers stand and
how close they get to the vote counters.
2. Mail-in ballots. For decades, Pennsylvania let only certain
people, like members of the military and their families, vote
by mail. See, e.g., 25 Pa. Stat. § 3146.1. But last year, as part
of a bipartisan election reform, Pennsylvania expanded mailin voting. Act of Oct. 31, 2019, Pub. L. No. 552, sec. 8, §
1310-D, 2019 Pa. Legis. Serv. Act 2019-77 (S.B. 421). Now,
any Pennsylvania voter can vote by mail for any reason. See
25 Pa. Stat. §§ 2602(t), 3150.11(a).
To vote by mail, a Pennsylvania voter must take several steps.
First, he (or she) must ask the State (Commonwealth) or his
county for a mail-in ballot. 25 Pa. Stat. § 3150.12(a). To
do that, he must submit a signed application with his name,
date of birth, address, and other information. § 3150.12(b)–
(c). He must also provide a driver's license number, the last
four digits of his Social Security number, or the like. §§
2602(z.5), 3150.12b(a), (c). Once the application is correct
and complete, the county will approve it. See §§ 3150.12a(a),
3150.12b.
Close to the election, the county will mail the voter a mailin ballot package. § 3150.15. The package has a ballot
and two envelopes. The smaller envelope (also called the
secrecy envelope) is stamped “Official Election Ballot.” §
3150.14(a). The larger envelope is stamped with the county
board of election's name and address and bears a printed voter
declaration. Id.
Next, the voter fills out the ballot. § 3150.16(a). He then folds
the ballot; puts it into the first, smaller secrecy envelope; and
seals it. Id. After that, he puts the secrecy envelope inside the
larger envelope and seals that too. Id. He must also “fill out,

Filedto12/09/20
4 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1892 Case

3

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

date and sign the declaration printed” on the outside of the
larger envelope. §§ 3150.16(a), 3150.14(b). The declaration
for the November 2020 election read thus:
I hereby declare that I am qualified to vote from the below
stated address at this election; that I have not already voted
in this election; and I further declare that I marked my
ballot in secret. I am qualified to vote the enclosed ballot.
I understand I am no longer eligible to vote at my polling
place after I return my voted ballot. However, if my ballot
is not received by the county, I understand I may only
vote by provisional ballot at my polling place, unless I
surrender my balloting materials, to be voided, to the judge
of elections at my polling place.
[BAR CODE]
Voter, sign or mark here/Votante firme o mar[q]ue aqui
X_______________________________________

Date of signing (MM/DD/YYYY)/Fechade firme (MM/
DD/YYYY)
_________________________________________
Voter, print name/Votante, nombre en letra de impreta
In re: Canvass of Absentee and Mail-in Ballots of November
3, 2020 General Election, Nos. 31–35 EAP & 29 WAP
2020,––– A.3d ––––, ––––, 2020 WL 6875017, at *4 (Pa.
Nov. 23, 2020). Once the voter assembles the ballot packet,
he can mail it back or deliver it in person. 25 Pa. Stat. §
3150.16(a).
Not every voter can be expected to follow this process
perfectly. Some forget one of the envelopes. Others forget to
sign on the dotted line. Some major errors will invalidate a
ballot. For instance, counties may not count mail-in ballots
that lack secrecy envelopes. Pa. Dem. Party v. Boockvar, 238
A.3d 345, 378–80 (Pa. 2020). But the Election Code says
nothing about what should happen if a county notices these
errors before election day. Some counties stay silent and do
not count the ballots; others contact the voters and give them
a chance to correct their errors.
B. Facts and procedural history
*3 On appeal from the dismissal of a complaint, we take the
factual allegations as true:

1. Mail-in voting. For months, Pennsylvanians went to the
polls, so to speak. The first batch of mail-in ballots went
out to voters in late September. As they trickled back in,
election officials noticed that some voters had not followed
the rules. Some ballots were not in secrecy envelopes,
so those packages were lighter and thinner than complete
ballot packages. Others had declarations that voters had not
completed. Some counties did not notify voters about these
defective ballots. Others, including the counties named in this
suit, decided to reach out to these voters to let them cure their
mistakes by voting provisionally on Election Day or asking
for a replacement ballot.
2. Election Day. Though more than two million
Pennsylvanians voted by mail, even more voted in person. On
Election Day, November 3, the Campaign set up poll watchers
at polling places around the Commonwealth. Appellees’
election officials kept poll watchers and representatives away
from where ballots were opened, counted, and tallied. In
Philadelphia, for instance, poll watchers were kept six to
twenty-five feet back from officials. In comparison, other,
“Republican[-]controlled” counties did give the Campaign's
poll watchers and representatives full access. Second Am.
Compl. ¶¶ 151, 154.
In all, nearly seven million Pennsylvanians voted, more
than a third of them by mail. Unofficial Returns for the
2020 Presidential Election, Pa. Dep't of State, https://
www.electionreturns.pa.gov/ (last visited Nov. 27, 2020). As
of today, former Vice President Biden leads President Trump
in Pennsylvania by 81,660 votes. Id.
Pennsylvania's counties certified their election results by
the November 23 certification deadline. 25 Pa. Stat.
§ 2642(k). The next morning, the Secretary of State
(technically, Secretary of the Commonwealth) certified the
vote totals, and the Governor signed the Certificate of
Ascertainment and sent it to the U.S. Archivist. Department
of State Certifies Presidential Election Results, PA
Media, https://www.media.pa.gov/Pages/State-details.aspx?
newsid=435 (last visited Nov. 27, 2020). The certified margin
of victory was 80,555 votes. Id.
3. This lawsuit. Almost a week after the election, the
Campaign (as well as two voters) sued seven Pennsylvania
counties and Secretary of State Kathy Boockvar. It alleged
that they had violated the Due Process, Equal Protection,
and Electors and Elections Clauses of the U.S. Constitution
by taking two basic actions: First, the counties (encouraged

Filedto12/09/20
5 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1893 Case

4

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

by Secretary Boockvar) identified defective mail-in ballots
early and told voters how to fix them. Second, they kept poll
watchers and representatives from watching officials count all
ballots.
So far, the Campaign has filed or tried to file three complaints.
The original Complaint, filed November 9, set out six counts
(plus a duplicate). After Boockvar and the counties moved to
dismiss, on November 15 the Campaign filed a First Amended
Complaint as of right, dropping four of the six counts (plus the
duplicate), including all the counts relating to poll watchers
and representatives. The Campaign sought a preliminary
injunction to block certifying the election results. Boockvar
and the counties again moved to dismiss. On November 18,
the Campaign sought to file a Second Amended Complaint,
resurrecting four dropped claims from the original Complaint
and adding three more about how Philadelphia had blocked
poll watching.
*4 The District Court ended these volleys, denying leave
to file the Second Amended Complaint. Instead, it dismissed
the First Amended Complaint with prejudice and denied the
Campaign's motion for a preliminary injunction as moot.
Donald J. Trump for President, Inc. v. Boockvar, No. 4:20cv-02078, ––– F. Supp. 3d ––––, 2020 WL 6821992 (M.D.
Pa. Nov. 21, 2020). In doing so, it held that the individual
voters lacked standing. Id. at ––––, at *5–6. We commend
the District Court for its fast, fair, patient handling of this
demanding litigation.
4. This appeal. The Campaign filed this appeal on Sunday,
November 22, and we granted its motion to expedite. The
Campaign filed its brief and another motion November 23;
opposing briefs and filings arrived the next day. We are
issuing this opinion nonprecedentially so we can rule by
November 27.
The Campaign does not challenge the District Court's finding
that the voters lacked standing, so we do not consider their
claims. On appeal, it seeks only narrow relief: to overturn
the District Court's decision not to let it amend its complaint
again. We address that claim in Part II. Separately, the
Campaign asks us for an injunction to prevent the certified
vote totals from taking effect. We address that claim in Part
III.

II. The District Court Properly Denied Leave To Amend
the Complaint Again
After one amendment, the District Court denied the
Campaign's motion to amend the complaint a second time.
We review that denial for abuse of discretion. Premier Comp.
Sol., LLC v. UPMC, 970 F.3d 316, 318–19 (3d Cir. 2020). But
on any standard of review, the court got it right.
Courts should grant leave to amend “freely ... when justice so
requires.” Fed. R. Civ. P. 15(a)(2). In civil-rights cases, that
means granting leave unless “amendment would be futile or
inequitable.” Vorchheimer v. Phila. Owners Ass'n, 903 F.3d
100, 113 (3d Cir. 2018); Cureton v. NCAA, 252 F.3d 267,
272–73 (3d Cir. 2001) (giving undue delay as an example
of inequity). Here, the Campaign's request fails as both
inequitable and futile.
A. The Campaign's delay was undue, given its stress on
needing to resolve the case by November 23
When the Campaign was before the District Court, it
focused its arguments on the need to resolve the case by
Pennsylvania's deadline for counties to certify their votes:
Monday, November 23. Indeed, all three iterations of the
complaint focused their prayers for relief on blocking the
certification of the vote tally. The Campaign said it could get
no “meaningful remedy” after that date. Br. in Supp. of Mot.
for TRO & PI, Dkt. 89-1, at 4.
The Campaign filed its First Amended Complaint on
November 15, eight days before the certification deadline. In
response to several pending motions to dismiss, it dropped
many of the challenged counts from the original Complaint.
It did not then move to file a Second Amended Complaint
until November 18, when its opposition to the new motions to
dismiss was due. And it did not file a brief in support of that
motion until Friday, November 20. Certification was three
days away.
As the District Court rightly noted, amending that close to the
deadline would have delayed resolving the issues. True, delay
alone is not enough to bar amendment. Cureton, 252 F.3d
at 273. But “at some point, the delay will become ‘undue,’
placing an unwarranted burden on the court.” Id. (quoting
Adams v. Gould, Inc., 739 F.2d 858, 868 (3d Cir. 1984)).
The Campaign's motion would have done just that. It would
have mooted the existing motions to dismiss and required new

Filedto12/09/20
6 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1894 Case

5

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

briefing, possibly new oral argument, and a reasoned judicial
opinion within seventy-two hours over a weekend. That is too
much to ask—especially since the proposed Second Amended
Complaint largely repleaded many claims abandoned by the
first one. Cf. Rolo v. City Investing Co. Liquidating Tr., 155
F.3d 644, 654–55 (3d Cir. 1998) (affirming denial of leave to
amend because the movant sought largely to “replead facts
and arguments that could have been pled much earlier”).
*5 Having repeatedly stressed the certification deadline, the
Campaign cannot now pivot and object that the District Court
abused its discretion by holding the Campaign to that very
deadline. It did not.
B. Amending the Complaint again would have been
futile
The Campaign focuses on critiquing the District Court's
discussion of undue delay. Though the court properly rested
on that ground, we can affirm on any ground supported by
the record. Another ground also supports its denial of leave
to amend: it would have been futile.
1. The Campaign had to plead plausible facts, not just
conclusory allegations. Plaintiffs must do more than allege
conclusions. Rather, “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007)). “Threadbare recitals of the elements of
a cause of action, supported by mere conclusory statements,
do not suffice.” Id. The Second Amended Complaint does not
meet Twombly and Iqbal’s baseline standard of specifics.
To start, note what it does not allege: fraud. Indeed, in
oral argument before the District Court, Campaign lawyer
Rudolph Giuliani conceded that the Campaign “doesn't plead
fraud.” Mot. to Dismiss Hr'g Tr. 118:19–20 (Nov. 17, 2020).
He reiterated: “If we had alleged fraud, yes, but this is not a
fraud case.” Id. at 137:18.
Though it alleges many conclusions, the Second Amended
Complaint is light on facts. Take the nearly identical
paragraphs introducing Counts One, Two, Four, and Six:
“Democrats who controlled the Defendant County Election
Boards engaged in a deliberate scheme of intentional and
purposeful discrimination ... by excluding Republican and
Trump Campaign observers from the canvassing of the mail
ballots in order to conceal their decision not to enforce

[certain ballot] requirements.” Second Am. Compl. ¶¶167,
193, 222, 252. That is conclusory. So is the claim that,
“[u]pon information and belief, a substantial portion of
the approximately 1.5 million absentee and mail votes in
Defendant Counties should not have been counted.” Id.
¶¶168, 194, 223, 253. “Upon information and belief” is a
lawyerly way of saying that the Campaign does not know that
something is a fact but just suspects it or has heard it. “While
legal conclusions can provide the framework of a complaint,
they must be supported by factual allegations.” Iqbal, 556
U.S. at 679, 129 S.Ct. 1937. Yet the Campaign offers no
specific facts to back up these claims.
2. The Campaign has already litigated and lost most of these
issues. Many of the Second Amended Complaint's claims
have already had their day in court. The Campaign cannot
use this lawsuit to collaterally attack those prior rulings.
On Counts One, Two, Four, and Six, the Campaign has
already litigated whether ballots that lack a handwritten name,
address, or date on the outer envelope must be disqualified.
See In re: Canvass of Absentee and Mail-in Ballots, ––– A.3d
at ––––, 2020 WL 6875017, at *1. The Pennsylvania Supreme
Court ruled against the Campaign, holding: “[T]he Election
Code does not require boards of elections to disqualify mailin or absentee ballots submitted by qualified electors who
signed the declaration on their ballot's outer envelope but did
not handwrite their name, their address, and/or date, where
no fraud or irregularity has been alleged.” Id. at ––––, at
*1. That holding undermines the Campaign's suggestions that
defective ballots should not have been counted.
*6 Counts One and Two also challenge the requirement
that poll watchers be registered electors of the county they
wish to observe and that observers be Pennsylvania lawyers.
But a federal district court has already held “that the countyresidency requirement for poll watching does not, as applied
to the particular circumstances of this election, burden any of
[the Campaign's] fundamental constitutional rights.” Donald
J. Trump for President, Inc. v. Boockvar, No. 2:20-cv-966,
––– F. Supp. 3d ––––, ––––, 2020 WL 5997680, at *66
(W.D. Pa. Oct. 10, 2020). The Campaign never appealed that
decision, so it is bound by it.
Count Seven alleges that Philadelphia's Board of Elections
violated due process by obstructing poll watchers and
representatives. But nothing in the Due Process Clause
requires having poll watchers or representatives, let alone
watchers from outside a county or less than eighteen feet away
from the nearest table. The Campaign cites no authority for

Filedto12/09/20
7 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1895 Case

6

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

those propositions, and we know of none. (Ditto for noticeand-cure procedures.) And the Campaign litigated and lost
that claim under state law too. The Pennsylvania Supreme
Court held that the Election Code requires only that poll
watchers be in the room, not that they be within any specific
distance of the ballots. In re Canvassing Observation Appeal
of: City of Phila. Bd. of Electors, No. 30 EAP 2020, ––– A.3d
––––, ––––, 2020 WL 6737895, at *8–9 (Pa. Nov. 17, 2020).
The Campaign does not even challenge the dismissal of
Counts Three, Five, and Nine, the Electors and Elections
Clause counts. It concedes that under our recent decision, it
lacks standing to pursue alleged violations of those clauses.
Bognet v. Sec'y Commonwealth of Pa., No. 20-3214, ––– F.3d
––––, ––––, 2020 WL 6686120, at *6–9 (3d Cir. Nov. 13,
2020). Given its concession, we need not consider the issue
any more.
The Second Amended Complaint thus boils down to the
equal-protection claims in Counts Two, Four, Six, and Eight.
They require not violations of state law, but discrimination in
applying it. Those claims fail too.
3. The Campaign never pleads that any defendant treated
the Trump and Biden campaigns or votes differently. A
violation of the Equal Protection Clause requires more than
variation from county to county. It requires unequal treatment
of similarly situated parties. But the Campaign never pleads
or alleges that anyone treated it differently from the Biden
campaign. Count One alleges that the counties refused to
credential the Campaign's poll watchers or kept them behind
metal barricades, away from the ballots. It never alleges
that other campaigns’ poll watchers or representatives were
treated differently. Count Two alleges that an unnamed lawyer
was able to watch all aspects of voting in York County,
while poll watchers in Philadelphia were not. It also makes
a claim about one Jared M. Mellott, who was able to poll
watch in York County. Counts Four and Six allege that poll
watcher George Gallenthin had no issues in Bucks County but
was barred from watching in Philadelphia. And Count Eight
alleges that Philadelphia officials kept Jeremy Mercer too far
away to verify that ballots were properly filled out. None of
these counts alleges facts showing improper vote counting.
And none alleges facts showing that the Trump campaign
was singled out for adverse treatment. The Campaign cites
no authority suggesting that an actor discriminates by treating
people equally while harboring a partisan motive, and we
know of none.

These county-to-county variations do not show
discrimination. “[C]ounties may, consistent with equal
protection, employ entirely different election procedures and
voting systems within a single state.” Donald J. Trump for
President, Inc., ––– F. Supp. 3d at ––––, 2020 WL 5997680, at
*44 (collecting cases). Even when boards of elections “vary ...
considerably” in how they decide to reject ballots, those
local differences in implementing statewide standards do not
violate equal protection. Ne. Ohio Coal. for the Homeless
v. Husted, 837 F.3d 612, 635–36 (6th Cir. 2016); see also
Wexler v. Anderson, 452 F.3d 1226, 1231–33 (11th Cir. 2006)
(recognizing that equal protection lets different counties use
different voting systems).
*7 Nor does Bush v. Gore help the Campaign. 531 U.S.
98, 121 S.Ct. 525, 148 L.Ed.2d 388 (2000) (per curiam).
There, the Florida Supreme Court had ratified treating ballots
unequally. Id. at 107, 121 S.Ct. 525. That was because the
principle it set forth, the “intent of the voter,” lacked any
“specific standards to ensure its equal application.” Id. at 105–
06, 121 S.Ct. 525. The lack of any standards at all empowered
officials to treat ballots arbitrarily, violating equal protection.
Id. Here, by contrast, Pennsylvania's Election Code gives
counties specific guidelines. To be sure, counties vary in
implementing that guidance, but that is normal. Reasonable
county-to-county variation is not discrimination. Bush v. Gore
does not federalize every jot and tittle of state election law.
4. The relief sought—throwing out millions of votes—is
unprecedented. Finally, the Second Amended Complaint
seeks breathtaking relief: barring the Commonwealth from
certifying its results or else declaring the election results
defective and ordering the Pennsylvania General Assembly,
not the voters, to choose Pennsylvania's presidential electors.
It cites no authority for this drastic remedy.
The closest the Campaign comes to justifying the relief
it seeks is citing Marks v. Stinson, 19 F.3d 873 (3d Cir.
1994). But those facts were a far cry from the ones here.
In Marks, the district court found that the Stinson campaign
had orchestrated “massive absentee ballot fraud, deception,
intimidation, harassment and forgery.” Id. at 887 (quoting
district court's tentative findings). It had lied to voters,
deceived election officials, and forged ballots. Id. at 877. We
remanded that case, instructing that “the district court should
not direct the certification of a candidate unless it finds, on the
basis of record evidence, that the designated candidate would
have won the election but for wrongdoing.” Id. at 889. And
that seemed likely: the Stinson campaign had gotten about

Filedto12/09/20
8 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1896 Case

7

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

600 net absentee-ballot applications (roughly 1000 minus 400
that were later rejected), more than the 461-vote margin of
victory. Id. at 876–77.
Here, however, there is no clear evidence of massive
absentee-ballot fraud or forgery. On the contrary, at oral
argument in the District Court, the Campaign specifically
disavowed any claim of fraud. And the margin of victory here
is not nearly as close: not 461 votes, but roughly 81,000.
Though district courts should freely give leave to amend, they
need not do so when amendment would be futile. Because the
Second Amended Complaint would not survive a motion to
dismiss, the District Court properly denied leave to file it.

III. No Stay or Injunction Is Warranted
We could stop here. Once we affirm the denial of leave
to amend, this case is over. Still, for completeness, we
address the Campaign's emergency motion to stay the effect
of certification. No stay or injunction is called for.
Though the Campaign styles its motion as seeking a stay or
preliminary injunction, what it really wants is an injunction
pending appeal. But it neither requested that from the District
Court during the appeal nor showed that it could not make that
request, as required by Federal Rule of Appellate Procedure
8(a)(2)(A). That failure bars the motion.
Even if we could grant relief, we would not.
Injunctions pending appeal, like preliminary injunctions, are
“extraordinary remed[ies] never awarded as of right.” Winter
v. NRDC, 555 U.S. 7, 24, 129 S.Ct. 365, 172 L.Ed.2d 249
(2008). For a stay or injunction pending appeal, the movant
must show both (1) a “strong” likelihood of success on the
merits and (2) irreparable injury absent a stay or injunction.
Hilton v. Braunskill, 481 U.S. 770, 776, 107 S.Ct. 2113,
95 L.Ed.2d 724 (1987). The first two factors are “the most
critical.” Nken v. Holder, 556 U.S. 418, 434, 129 S.Ct. 1749,
173 L.Ed.2d 550 (2009). After that, we also balance (3)
whether a stay or injunction will injure other interested parties
(also called the balance of equities) and (4) the public interest.
Hilton, 481 U.S. at 776, 107 S.Ct. 2113; In re Revel AC, Inc.,
802 F.3d 558, 568–71 (3d Cir. 2015). None of the four factors
favors taking this extraordinary step.

A. The Campaign has no strong likelihood of success on
the merits
*8 As discussed, the Campaign cannot win this lawsuit.
It conceded that it is not alleging election fraud. It has
already raised and lost most of these state-law issues, and
it cannot relitigate them here. It cites no federal authority
regulating poll watchers or notice and cure. It alleges no
specific discrimination. And it does not contest that it lacks
standing under the Elections and Electors Clauses. These
claims cannot succeed.
B. The Campaign faces no irreparable harm
The Campaign has not shown that denying relief will injure
it. “Upon information and belief,” it suspects that many of
the 1.5 million mail-in ballots in the challenged counties were
improperly counted. Second Am. Compl. ¶¶168, 194, 223,
253. But it challenges no specific ballots. The Campaign
alleges only that at most three specific voters cast ballots that
were not counted. Id. ¶237 (one voter); First Am. Compl.
¶¶15–16, 112 (three). And it never alleges that anyone except
a lawful voter cast a vote. Of the seven counties whose noticeand-cure procedures are challenged, four (including the three
most populous) represented that they gave notice to only
about 6,500 voters who sent in defective ballot packages.
Allegheny Cty. Opp. Mot. TRO & PI 7–8, D. Ct. Dkt. No. 193
(Nov. 20, 2020). The Campaign never disputed these numbers
or alleged its own. Even if 10,000 voters got notice and cured
their defective ballots, and every single one then voted for
Biden, that is less than an eighth of the margin of victory.
Without more facts, we will not extrapolate from these modest
numbers to postulate that the number of affected ballots
comes close to the certified margin of victory of 80,555 votes.
Denying relief will not move the needle.
Plus, states are primarily responsible for running federal
elections. U.S. Const. art. I, § 4, cl. 1; 3 U.S.C. § 5.
Pennsylvania law has detailed mechanisms for disputing
election results. 25 Pa. Stat. §§ 3261–3474. Because the
Campaign can raise these issues and seek relief through state
courts and then the U.S. Supreme Court, any harm may not be
irreparable. Touchston v. McDermott, 234 F.3d 1130, 1132–
33 (11th Cir. 2000) (per curiam) (en banc).
C. The balance of equities opposes disenfranchising
voters

Filedto12/09/20
9 of 11Works.
Document 73-2
© 20202:20-cv-01771-PP
Thomson Reuters. No claim
original U.S.Page
Government
1897 Case

8

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

Nor would granting relief be equitable. The Campaign has
already litigated and lost most of these issues as gardenvariety state-law claims. It now tries to turn them into federal
constitutional claims but cannot. See Bognet, ––– F.3d at
––––, 2020 WL 6686120, at *11.
Even if it could, it has delayed bringing this suit. For instance,
in proposed Count Four, it challenges giving voters notice and
letting them cure ballot defects as violating equal protection.
The Campaign could have disputed these practices while they
were happening or during the canvassing period. Instead, it
waited almost a week after Election Day to file its original
complaint, almost another week to amend it, and then another
three days to amend it again. Its delay is inequitable, and
further delay would wreak further inequity.
And the Campaign's charges are selective. Though
Pennsylvanians cast 2.6 million mail-in ballots, the Campaign
challenges 1.5 million of them. It cherry-picks votes cast in
“Democratic-heavy counties” but not “those in Republicanheavy counties.” Second Am. Compl. ¶8. Without compelling
evidence of massive fraud, not even alleged here, we can
hardly grant such lopsided relief.

That court recently reiterated: “[T]he Election Code should
be liberally construed so as not to deprive, inter alia, electors
of their right to elect a candidate of their choice.” Pa. Dem.
Party, 238 A.3d at 356. Thus, unless there is evidence of
fraud, Pennsylvania law overlooks small ballot glitches and
respects the expressed intent of every lawful voter. In re:
Canvass of Absentee and Mail-in Ballots, 2020 WL 6875017,
at *1 (plurality opinion). In our federalist system, we must
respect Pennsylvania's approach to running elections. We will
not make more of ballot technicalities than Pennsylvania itself
does.
*****
Voters, not lawyers, choose the President. Ballots, not
briefs, decide elections. The ballots here are governed by
Pennsylvania election law. No federal law requires poll
watchers or specifies where they must live or how close they
may stand when votes are counted. Nor does federal law
govern whether to count ballots with minor state-law defects
or let voters cure those defects. Those are all issues of state
law, not ones that we can hear. And earlier lawsuits have
rejected those claims.

Granting relief would harm millions of Pennsylvania voters
too. The Campaign would have us set aside 1.5 million ballots
without even alleging fraud. As the deadline to certify votes
has already passed, granting relief would disenfranchise those
voters or sidestep the expressed will of the people. Tossing
out those ballots could disrupt every down-ballot race as well.
There is no allegation of fraud (let alone proof) to justify
harming those millions of voters as well as other candidates.

Seeking to turn those state-law claims into federal ones,
the Campaign claims discrimination. But its alchemy cannot
transmute lead into gold. The Campaign never alleges that
any ballot was fraudulent or cast by an illegal voter. It never
alleges that any defendant treated the Trump campaign or
its votes worse than it treated the Biden campaign or its
votes. Calling something discrimination does not make it so.
The Second Amended Complaint still suffers from these core
defects, so granting leave to amend would have been futile.

D. The public interest favors counting all lawful voters’
votes
*9 Lastly, relief would not serve the public interest.
Democracy depends on counting all lawful votes promptly
and finally, not setting them aside without weighty proof. The
public must have confidence that our Government honors and
respects their votes.

And there is no basis to grant the unprecedented injunction
sought here. First, for the reasons already given, the
Campaign is unlikely to succeed on the merits. Second, it
shows no irreparable harm, offering specific challenges to
many fewer ballots than the roughly 81,000-vote margin
of victory. Third, the Campaign is responsible for its delay
and repetitive litigation. Finally, the public interest strongly
favors finality, counting every lawful voter's vote, and not
disenfranchising millions of Pennsylvania voters who voted
by mail. Plus, discarding those votes could disrupt every other
election on the ballot.

What is more, throwing out those votes would conflict with
Pennsylvania election law. The Pennsylvania Supreme Court
has long “liberally construed” its Election Code “to protect
voters’ right to vote,” even when a ballot violates a technical
requirement. Shambach v. Bickhart, 577 Pa. 384, 845 A.2d
793, 802 (2004). “Technicalities should not be used to make
the right of the voter insecure.” Appeal of James, 377 Pa. 405,
105 A.2d 64, 66 (1954) (internal quotation marks omitted).

We will thus affirm the District Court's denial of leave to
amend, and we deny an injunction pending appeal. The
Campaign asked for a very fast briefing schedule, and we have

2:20-cv-01771-PP
12/09/20
Page
10 of 11
Document 73-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1898 Case

9

Donald J. Trump for President, Inc. v. Secretary of Pennsylvania, --- Fed.Appx. ---- (2020)
2020 WL 7012522

granted its request. Because the Campaign wants us to move
as fast as possible, we also deny oral argument. We grant all
motions to file overlength responses, to file amicus briefs,
and to supplement appendices. We deny all other outstanding
motions as moot. This Court's mandate shall issue at once.

All Citations
--- Fed.Appx. ----, 2020 WL 7012522

Footnotes

*

This disposition is not an opinion of the full Court and, under I.O.P. 5.7, is not binding precedent.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

2:20-cv-01771-PP
12/09/20
Page
11 of 11
Document 73-2
© 2020
Thomson Reuters. No Filed
claim to
original U.S.
Government
Works.
1899 Case

10

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
______________________________________________________________________________
ORDER DENYING JAMES GESBECK’S MOTION TO INTERVENE (DKT. NO.
14) AND GRANTING IN PART AND DENYING IN PART INTERVENORDEFENDANT CIVIL L.R. 7(H) EXPEDITED NONDISPOSITIVE MOTION TO
INTERVENE (DKT. NO. 33)
______________________________________________________________________________
The plaintiff’s amended complaint alleges that the 2020 election process
“is so riddled with fraud, illegality, and statistical impossibility that this Court,
and Wisconsin’s voters, courts, and legislators, cannot rely on, or certify, any
numbers resulting from this election.” Dkt. No. 9 at ¶5. It states that the court
“must set aside the results of the 2020 General Election and grant the
declaratory and injunctive relief requested herein.” Id.
The amended complaint first asserts that the election software and
hardware used by defendant the Wisconsin Elections Commission were subject
to hacking and manipulation and that “Wisconsin officials” disregarded widely
reported concerns to this effect in utilizing the hardware and software. Id. at
¶¶6-13, 52-99. Next, it asserts that the Wisconsin Elections Commission
issued improper guidance to clerks and election officials in violation of
Wisconsin law. Id. at ¶¶14, 37-45. Third, it alleges that mail-in ballots either
1

1900

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 16 Document 74

were lost or were fraudulently recorded for voters who did not request them. Id.
at ¶¶46-50. Fourth, it asserts that voters who were ineligible to vote because
they were registered in other states nonetheless voted in Wisconsin. Id. at ¶51.
The plaintiff requests the following relief:
1.
An order directing Governor Evers and the Wisconsin
Elections Commission to de-certify the election results;
2.
An order enjoining Governor Evers from transmitting the
currently certified election results [to] the Electoral College;
3.
An order requiring Governor Evers to transmit certified
election results that state that President Donald Trump is the
winner of the election;
4.
An immediate temporary restraining order to seize and
impound all servers, software, voting machines, tabulators, printers,
portable media, logs, ballot applications, ballot return envelopes,
ballot images, paper ballots, and all “election materials” referenced
in Wisconsin Statutes § 9.01(1)(b)11. related to the November 3,
2020 Wisconsin election for forensic audit and inspection by the
Plaintiff;
5.
An order that no votes received or tabulated by machines that
were not certified as required by federal and state law be counted;
6.
A declaratory judgment declaring that Wisconsin’s failed
system of signature verification violates the Electors and Elections
Clause by working a de facto abolition of the signature verification
requirement;
7.
A declaratory judgment declaring that currently certified
election results violate the Due Process Clause, U.S. CONST.
Amend. XIV;
8.
A declaratory judgment declaring that mail-in and absentee
ballot fraud must be remedied with a Full Manual Recount or
statistically valid sampling that properly verifies the signatures on
absentee ballot envelopes and that invalidates the certified results if
the recount or sampling analysis shows a sufficient number of
ineligible absentee ballots were counted;

2

1901

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 16 Document 74

9.
A declaratory judgment declaring absentee ballot fraud
occurred in violation of Constitutional rights, Election laws and
under state law;
10. A permanent injunction prohibiting the Governor and
Secretary of State from transmitting the currently certified results
to the Electoral College based on the overwhelming evidence of
election tampering;
11. Immediate production of 48 hours of security camera
recordings of all voting central count facilities and processes in
Milwaukee and Dane Counties for November 3, 2020 and November
4, 2020.
Id. at ¶142.
The same day the plaintiff filed the amended complaint, movant James
Gesbeck filed a motion to intervene. Dkt. No. 14. The movant describes himself
as a Wisconsin citizen and a licensed attorney (although he is not admitted to
practice before this court). Id. at 1. He indicates that he voted in the 2020
general election, and that he voted in Wisconsin. Dkt. No. 15 at 1. He asserts
that if the court grants the relief the plaintiff requests, it will disenfranchise his
vote. Id.
The movant first argues that he is entitled to intervene as of right under
Fed. R. Civ. P. 24(a). Id. at 2. He argues that his motion is timely filed and that
he has a personal and individual interest in the outcome of the litigation. Id. He
asserts that his interest would be impaired if the court were to grant the
plaintiff’s proposed relief. Id. at 3. He asserts that his interests are not
adequately protected by the named defendants. Id. at 3-4. The movant asserts
that he also meets the requirements for permissive intervention under Fed. R.
Civ. P. 24(b). Id. at 4.
3

1902

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 16 Document 74

The movant later filed a Rule 7(h) expedited, non-dispositive motion; that
motion did not add to the substance of his arguments, focusing on the
movant’s request that the court rule by 5:00 p.m. on Friday, December 4. Dkt.
No. 33.
The court grants the movant’s request for an expedited ruling (although
not as expedited as he requested) and denies the motion to intervene.
A.

Intervention As of Right

Fed. R. Civ. P. 24(a) provides that “[o]n timely motion, the court must
permit anyone to intervene” if the party seeking to intervene “claims an interest
relating to the . . . transaction that is the subject of the action, and is so
situated that disposing of the action may as a practical matter impair or
impede the movant’s ability to protect its interest, unless existing parties
adequately represent that interest.” (Emphasis added.) The Seventh Circuit has
described the rule as “straightforward:”
[T]he court must permit intervention if (1) the motion is timely; (2)
the moving party has an interest relating to the property or
transaction at issue in the litigation; and (3) that interest may, as a
practical matter, be impaired or impeded by disposition of the case.
A proposed intervenor who satisfies these three elements is entitled
to intervene unless existing parties adequately represent his
interests.
Driftless Area Land Conservancy v. Huebsch, 969 F.3d 742, 746 (7th Cir. 2019)
(emphasis in the original).
1.

Timeliness of the Motion

“The test for timeliness is essentially one of reasonableness: ‘potential
intervenors need to be reasonably diligent in learning of a suit that might affect
4

1903

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 16 Document 74

their rights, and upon so learning they need to act promptly.’” Reich v.
ABC/York-Estes Corp., 64 F.3d 316, 321 (7th Cir. 1995 (quoting Nissei Sangyo
Am., Ltd. v. United States, 31 F.3d 435, 438 (7th Cir. 1994)). In determining
whether the potential intervenor was reasonably diligent, courts “also consider
the prejudice to the original party if intervention is permitted and the prejudice
to the intervenor if his motion is denied.” Id. The Seventh Circuit has expressed
these concepts in the form of a four-factor test:
(1) the length of time the intervenor knew or should have known of
his interest in the case; (2) the prejudice caused to the original
parties by the delay; (3) the prejudice to the intervenor if the motion
is denied; (4) any other unusual circumstances.
State v. City of Chi., 912 F.3d 979, 984 (7th Cir. 2019) (quoting Grochinski v.
Mayer Brown Rowe & Maw, LLP, 719 F.3d 785, 797-90 (7th Cir. 2013)).
The movant filed his motion to intervene two days after the original
complaint was filed and the same day as the amended complaint. There would
be no prejudice to the original parties in allowing the movant to intervene,
particularly because he represented that he was prepared to oppose the
plaintiff’s motion for injunctive relief by whatever deadline the court set. The
movant did not address the third and fourth factors—the prejudice to the
movant if the court did not allow him to intervene and any other unusual
circumstances. Because the movant filed his motion the same day the plaintiff
filed the original complaint, however, the court concludes that the motion is
timely.

5

1904

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 16 Document 74

2.

The Moving Party’s Interest

The movant next must demonstrate that he has an interest relating to
the property or transaction at issue in the litigation. The “transactions” at issue
in this litigation are the decisions of defendants the Wisconsin Elections
Commission and its members to sign the canvass statement for the 2020
general election and the recount in Dane and Milwaukee Counties and the
action of defendant Governor Tony Evers in signing the Certificate of
Ascertainment certifying the results of the 2020 general election.
The question of whether the movant, a Wisconsin resident who voted in
the 2020 general election in Wisconsin, has an “interest” in those transactions
is not as straightforward as one might imagine.
Rule 24(a)(2) requires that the applicant claim “an interest relating
to the property or transaction that is the subject of the action.”
“Interest” is not defined, but the case law makes clear that more
than the minimum Article III interest is required. Cases say for
example that a mere “economic interest” is not enough. E.g., In re
Lease Oil Antitrust Litigation, 570 F.3d 244, 250-52 (5th Cir. 2009);
Mountaintop Condominium Ass’n v. Dave Stabbert Master Builder,
Inc., 72 F.3d 361, 366 (3d Cir. 1995); cf. Reich v. ABC/York-Estes
Corp., 64 F.3d 316, 322-23 (7th Cir. 1995). While that is a confusing
formulation—most civil litigation is based on nothing more than an
“economic interest”—all that the cases mean is that the fact that you
might anticipate a benefit from a judgment in favor of one of the
parties to the lawsuit—maybe you’re a creditor of one of them—does
not entitle you to intervene in their suit.
Flying J, Inc. v. Van Hollen, 578 F.3d 569, 571 (7th Cir. 2009).
The movant contends that the litigation “directly concerns [his] vote that
was [cast] in the 2020 General Election in Wisconsin,” and argues that both
the right to vote and the right to have the vote count is fundamental. Dkt. No.

6

1905

Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 16 Document 74

15 at 2. The movant could anticipate benefits from a judgment in favor of the
defendants; because he says that granting the relief the plaintiff requests
would invalidate his vote or disenfranchise him, he could anticipate a benefit if
the court denied that relief.
Related to—possibly entangled with—the concept of “interest” is the
question of standing. The Seventh Circuit has held that “[n]o one can maintain
an action in a federal court . . . unless he has standing to sue, in the sense
required by Article III of the Constitution—that is, unless he can show injury . .
. and that he would benefit from a decision in his favor.” Flying J, Inc., 578
F.3d at 571. “Standing to sue” implies that it is only the plaintiff who must
have standing. In most cases, the question of whether a defendant has
standing does not arise because the plaintiff has sought relief against the
plaintiff. But a party who seeks to intervene as a defendant seeks to intervene
in a lawsuit brought by a plaintiff who has not sought relief against it. See
Matthew I. Hall, Standing of Intervenor-Defendants in Public Law Litigation, 80
Fordham L. Rev. 1539, 1552 (2012). Whether such a defendant—particularly
when the defendant represents a broad public interest (as, arguably, the
movant does)—must have Article III standing is unclear. See, e.g., Diamond v.
Charles, 476 U.S. 54, 68 (1986) (concluding that it need not decide whether a
party seeking to intervene due to public concerns must have Article III
standing); Gregory R. Manring, It’s Time for an Intervention: Resolving the
Conflict Between Rule 24(a)(2) and Article III Standing, 85 Fordham L. Rev. 2525
(2017).
7

1906

Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 16 Document 74

The movant’s motion does not address his standing to intervene as a
defendant. Courts recently have found that a registered voter did not have
standing to sue an election board for allegedly denying his preferred
candidate’s campaign access to observe and monitor the voting process, see
Wood v. Raffensperger, No. 20-14418, 2020 WL 7094866, at *4-6 (11th Cir.
Dec. 5, 2020); did not have standing to raise claims of vote dilution, see Moore
v. Circosta, Nos. 1:20CV911, 1:20CV912, 2020 WL 6063332, at *14 (M.D. N.C.
Oct. 14, 2020); and did not have standing to challenge a Secretary of State’s
directive that election ballots be mailed to every active voter on a statewide
voter checklist, see Martel v. Condos, No. 5:20-cv-131, 2020 WL 5755289, at
*3-5 (D. Vermont Sept. 16, 2020). Each of these courts concluded that the
voter plaintiffs had not identified the kind of concrete, particularized injury
required to establish standing.
While the court could engage in an extensive analysis of whether the
movant’s argument that his vote will not count if the court rules in the
plaintiff’s favor constitutes such a concrete and particularized injury, it suffices
to say that the question of whether a defendant-intervenor must have Article III
standing, and what that standing might look like when the potential defendantintervenor is a voter who asserts that the court’s action invalidates his vote, is
fraught. Without deciding today whether a defendant-intervenor must have
Article III standing or what would constitute such standing under the movant’s
circumstances, the court assumes that the movant has an interest in the

8

1907

Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 16 Document 74

transactions that give rise to the litigation and will move to the next two
factors.
3.

Impairment of the Movant’s Interest

“The existence of ‘impairment’ depends on whether the decision of a
legal question involved in the action would as a practical matter foreclose rights
of the proposed intervenors in a subsequent proceeding.” Meridian Homes
Corp. v. Nicholas W. Prassas & Co., 683 F.2d 201, 204 (7th Cir. 1982).
(Citation omitted). The “foreclosure” of the proposed intervenor’s rights “is
measured by the general standards of stare decisis.” Id. (Citations omitted.) In
other words, whether or not the defendants succeed in this suit, is the movant
free to initiate its own suit? See Shea v. Angulo, 19 F.3d 343, 347 (7th Cir.
1994).
Because the movant’s interest is in having his vote count, as opposed to
having a court direct the result of the 2020 general election, a decision granting
the relief the plaintiff requests—decertifying the results of Wisconsin’s 2020
general election and ordering the defendants to certify a different result—likely
would foreclose the movant’s rights in a subsequent suit. The movant cannot
bring suit as a plaintiff because he has no complaint with the status quo.
Because the electoral college will meet and vote in five days, the movant likely
would not have time to mount his own suit in the event this court rules in favor
of the plaintiff.

9

1908

Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 16 Document 74

The movant has demonstrated that as a practical matter, his interests
may be impaired or impeded by disposition of case, depending on that
disposition.
4.

Adequacy of Representation

The movant asserts that his interests are not adequately represented by
the existing parties. Dkt. No. 15 at 3. He asserts that his interest is to defend
his constitutional right to vote and that the Wisconsin Elections Commission,
its members and Governor Tony Evers are not tasked with protecting that
right. Id. He also asserts that the defendants are responsible for representing
the state of Wisconsin as a whole and not individual voters. Id. He asserts that
the right to vote is an individual right and argues that the court should not
assume that it is the role of the governor or the elections commission to protect
that individual right. Id. at 4. He says that there may be times when the
defendants are averse to the individual right to vote, “as occurs during lawsuits
over felon disenfranchisement.” Id.
The Seventh Circuit has spoken extensively on this factor of the Rule
24(a) test in the past year. Most recently, in Driftless, the court explained that
“[t]he most important factor in determining adequacy of
representation is how the interest of the absentee compares with the
interests of the present parties.” 7C CHARLES ALAN WRIGHT & ARTHUR
MILLER & MARY KAY KANE, FEDERAL PRACTICE AND PROCEDURE § 1909
(3d ed. 2007). Our recent decision in Planned Parenthood of
Wisconsin, Inc. v. Kaul describes our circuit’s three-tiered
methodology for evaluating adequacy of representation under Rule
24(a)(2). 942 F.3d 793, 799 (7th Cir. 2019). “The default rule,” we
explained, “is a liberal one.” Id. It derives from the Supreme Court’s
decision in Trbovich v. United Mine Workers of America, which
explained that “the requirement of the Rule is satisfied if the
10

1909 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 16 Document 74

applicant shows that representation of his interest ‘may be’
inadequate; and the burden of making that showing should be
treated as minimal.” 404 U.S. 528, 538 n.10 . . . (1972).
However, if the interest of the absentee is identical to that of an
existing party, or if a governmental party is charged by law with
representing the absentee’s interest, then the standard for
measuring adequacy of representation changes. In both situations—
where the absentee and an existing party have identical interests, or
the existing party is a governmental agency or official with a legal
duty to represent the absentee’s interest—a rebuttable presumption
of adequate representation arises, and the prospective intervenor
must carry a heightened burden to establish inadequacy of
representation. The degree of this heightened burden varies.
Driftless Area Land Conservancy, 969 F.3d at 747.
So—if the movant’s interest is not identical to that of an existing party or
if there is no governmental party charged by law with representing the
movant’s interest, the movant has only the minimal burden of showing that the
party’s representation “may be” inadequate. But if the movant’s interest is
identical to that of an existing party, “there is a rebuttable presumption of
adequate representation that requires a showing of ‘some conflict’ to warrant
intervention.” Planned Parenthood, 942 F.3d at 799 (quoting Wis. Ed. Ass’n
Council v. Walker (“WEAC”), 705 F.3d 640, 659 (7th Cir. 2013)). And if one of
the existing parties is a governmental body charged by law with protecting the
interests of the movant, the presumption is even stronger and the standard for
rebutting the presumption higher. Id.
Defendant the Wisconsin Elections Commission is a governmental body;
its members and defendant Governor Tony Evers are representatives of
government bodies. The movant asserts, however, that the court should not
assume that any of these defendants are responsible for protecting his
11

1910 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 16 Document 74

interests. Dkt. No. 15 at 3. The Wisconsin Elections Commission “administers
and enforces Wisconsin elections law.” https://elections.wi.gov/about. It
appears that neither the WEC nor its members are charged with protecting the
interests of individual voters beyond the voter’s interest in seeing Wisconsin’s
election laws enforced. But its mission would appear to include ensuring that
the valid ballot of every voter—Democratic, Republican or other—is counted. In
the narrower context of the lawsuit, the court presumes the WEC’s interest and
that of its members is in defending its actions in administering and enforcing
Wisconsin’s election laws, particularly in signing the canvass statement for the
2020 Presidential general election results after the recount in Milwaukee and
Dane Counties. And the interest of defendant Governor Evers presumably will
be to defend his signing of the Certificate of Ascertainment certifying the
results of that election.
The court agrees that none of the defendants are “charged by law with
protecting the interests of the proposed intervenor[],” Planned Parenthood, 942
F.3d at 799, to the extent that the movant’s interests go beyond his interest in
the proper administration and enforcement of state and federal election laws
and procedures. This means the movant need not rebut the most heightened
presumption of adequacy.
But the movant and the defendants have “the same goal.” WEAC, 705
F.3d at 659 (citing Shea, 19 F.3d at 347). The movant and the defendants both
seek to defend the certified results of the Wisconsin 2020 Presidential general
election. Both oppose the relief the plaintiff seeks—the decertification of the
12

1911 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 16 Document 74

election and the certification of a different result. Both seek to defend the
certification on the ground that the election was lawful and the results valid.
The fact that the movant and the defendants share the same goal may
not necessarily give rise to the presumption of adequate representation. In her
concurrence in Planned Parenthood, now-Chief Judge Sykes explained that in
WEAC, the court had stated that an intervenor’s interest must be “unique;”
Judge Sykes sought to clarify:
WEAC cited Keith v. Daley, 764 F.2d 1265, 1268 (7th Cir. 1985), as
support for the uniqueness requirement. The relevant passage in
Keith, however, doesn’t use the term “unique.” It says this: “The
[intervenor’s] interest must be based on a right that belongs to the
proposed intervenor rather than to an existing party in the suit.” Id.
In other words, the intervenor’s interest must be based on a right
that is direct and independent. That much is clear from the
immediately preceding sentence: “A proposed intervenor must
demonstrate a direct, significant[,] and legally protectable interest in
the property [or transaction] at issue in the lawsuit.”
“Unique” is a suitable word to describe the nature of the required
interest, but as used in this context, “unique” means an interest that
is independent of an existing party’s, not different from an existing
party’s. If the intervenor has a significant independent interest but
shares the same goal as an existing party (that is, if their interests
align), then the standard for measuring the adequacy of existing
representation changes, as WEAC later explains. 705 F.3d at 659
(explaining that a presumption of adequate representation arises
when goals align). But sharing the same goal as an existing party
doesn’t defeat “uniqueness,” properly understood.
Planned Parenthood, 942 F.3d at 806.
Given this clarification, Judge Sykes concluded that the Legislature had
an independent right from the Attorney General because it had an
independent, statutory right to intervene under Wis. Stat. §803.09(2m). Id.

13

1912 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 16 Document 74

The movant does not have a right, independent of the defendants, to
defend the certification of the 2020 election results. He has different reasons
for defending the certification. As a registered voter, he wants to make sure the
winner of the election is decided by a count of the valid votes cast, not by a
decision of an appointed federal judge. But the movant seeks to defend the
certification because he believes it was lawful and because he believes it
utilized his vote—it resulted in his vote “counting.” The movant is more
concerned about his vote being disregarded. But his concern about any votes
being disregarded aligns with the defendants’ interests in defending the legality
of the certification.
Because the movant has the same goal as the defendants and has
identified no right independent of the defendants, the movant must rebut the
presumption of adequate representation by “show[ing] that some conflict
exists.” WEAC, 705 F.3d at 659. The movant has not identified such a conflict.
5.

Conclusion

The court concludes that because the movant has not rebutted the
presumption that the defendants will adequately represent his interests, he is
not entitled to intervene as of right.
B.

Permissive Intervention

The movant also says that he is qualified to intervene under Rule 24(b).
Dkt. No. 15 at 4. He says that if his vote is not counted, he would “have a
cause of action to seek a court order requiring these defendants to honor [his]

14

1913 Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 16 Document 74

vote,” and argues that this would not further judicial economy because his suit
would rely on the same facts and issues of law as this case. Id.
Rule 24(b)(1)(B) gives a court the discretion to allow a party to intervene
if that party “has a claim or defense that shares with the main action a
common question of law or fact.” The Planned Parenthood decision sheds light
on the distinction between Rules 24(a) and 24(b):
Rule 24(b) is vague about the factors relevant to permissive
intervention, but it is not just a repeat of Rule 24(a)(2). We have thus
cautioned courts not to deny permissive intervention solely because
a proposed intervenor failed to prove an element of intervention as
of right. See City of Chi. v. FEMA, 660 F.3d 980, 987 (7th Cir. 2011);
Solid Waste Agency of N. Cook Cty. v. U.S. Army Corps of Eng’rs, 101
F.3d 503, 509 (7th Cir. 1996). Still, we have never gone so far as
confining the district court’s discretion to only the two mandatory
factors in Rule 24(b)(3) or to prohibit consideration of the elements
of intervention as of right as discretionary factors. Even when a
district court “did not explicitly break out its reasoning” on the two
requests, we have affirmed so long as the “decision shows a
thorough consideration of the interests of all the parties.” Ligas [ex
rel. Foster v. Maram], 478 F.3d [771] at 776 [7th Cir. 2007)].
Planned Parenthood, 942 F.3d at 804.
The court will not exercise its discretion to grant permissive intervention.
First, as the court has noted, the issue of standing for defendant-intervenors is
murky. While the Seventh Circuit has speculated that permissive intervention
may not require standing “if the existing parties present a case or controversy,”
it has not decided the question. Id. at 803 n.5. Second, the court has noted
that the movant has not identified any conflict that would prevent the current
defendants from adequately representing his interests. Third, the court already
has granted the movant leave to file an amicus brief, dkt. no. 37, and he has

15

1914 Case 2:20-cv-01771-PP Filed 12/09/20 Page 15 of 16 Document 74

done so, dkt. no. 47. The court has the benefit of the movant’s perspective; he
does not need to become a party to ensure that the court takes into account
the perspective of an individual voter.
C.

Conclusion

The court GRANTS the Intervenor-Defendant Civil L.R. 7(h) Expedited
Nondispositive Motion to Intervene, to the extent that it asks the court to
expedite its ruling on his December 3, 2020 motion to intervene. Dkt. No. 33.
The court DENIES James Gesbeck’s Motion to Intervene. Dkt. No. 14.
The court DENIES the Intervenor-Defendant Civil L.R. 7(h) Expedited
Nondispositive Motion to Intervene, to the extent that it asks the court to grant
the movant’s December 3, 2020 motion to intervene. Dkt. No. 33.
Dated in Milwaukee, Wisconsin this 9th day of December, 2020.
BY THE COURT:
_______________________________________
HON. PAMELA PEPPER
Chief United States District Judge

16

1915 Case 2:20-cv-01771-PP Filed 12/09/20 Page 16 of 16 Document 74

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S MOTION TO FILE UNREDACTED COPIES OF
(1) EXHIBITS 1 AND 12 TO PLAINTIFF’S AMENDED COMPLANT UNDER
SEAL AND (2) EXHIBITS 4, 13 AND 19 UNDER PROTECTIVE ORDER
______________________________________________________________________________
COMES NOW Plaintiff, William Feehan by and through his undersigned counsel, and
respectfully moves that the Court grant him permission to File Copies of (1) Exhibits 1 and 12 to
Plaintiff’s Amended Complaint Under Seal and (2) Exhibits 4, 13 and 19 Under Protective Order.
This motion is made pursuant to General L. R. 79 and Eastern District of Wisconsin ECF Policies
and Procedures.1
Pursuant to the Policies and Procedures, Plaintiff designates Exhibits 1 and 12 as “Sealed,” to
be “only by the judge.”2 Plaintiff has designated Exhibits 4, 13, and 19 as “Restricted to Case
Participant,” allowing “all attorneys of record to view the document” using an “e-filing log-in and
password” provided by the Court.”3 Plaintiff’s Memorandum in support is filed herewith.
https://www.wied.uscourts.gov/e-filing-restricted-and-sealed-documents
Id. , § 1.
3
Id.
1
2

1

1916

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 4 Document 75

As General L. R. 79(d)(2) the Policies and Procedures direct, this Motion and Memorandum
are being filed “publicly” by “separate motion” “PRIOR” to filing the unredacted Exhibits
themselves.4
Respectfully submitted, this 9th day of December, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

Section 2 provides:
2. FILE A MOTION TO SEAL/RESTRICT
General Local Rule 79(d) states that the Court will consider all documents to be filed publicly
unless they are accompanied by a separate motion to seal/restrict the document or portion
thereof. The motion to seal/restrict should be filed PRIOR to the filing of any sealed/restricted
documents. Documents electronically filed as sealed or restricted which do not have an
accompanying motion to seal/restrict will be made publicly available.
Id. Bold face and capitalization original).
4

2

1917

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 4 Document 75

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

3

1918

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 4 Document 75

CERTIFICATION
Pursuant to General L. R. 79(d)(4), I certify that I have conferred with lead counsel for
Defendants in a good faith attempt to avoid this Motion to limit the scope of the documents or
materials subject to sealing under the Motion to only the Sealed or Restricted identities of the
Affiants whose complete affidavits and declarations are already filed with the Court as Exhibits to
Plaintiffs’ Amended Complaint, with only their identities being redacted.
As indicated in the Motion, Counsel for Defendant Governor Evers has objected. Response to
Gov. Evers’ objection are included in the Memorandum submitted in support.

December 9, 2020
LOCAL COUNSEL FOR PLAINTIFF
/s Michael D. Dean

4

1919

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 4 Document 75

.

Michael Dean
From:
Sent:
To:
Cc:
Subject:

Jeffrey Mandell <JMandell@staffordlaw.com>
Wednesday, December 9, 2020 11:24 AM
Michael Dean; Murphy, S. Michael
sidney@federalappeals.com; Howard Kleinhendler (howard@kleinhendler.com); Dan
Eastman (daneastman@me.com)
RE: Motion to Seal/Restrict Identities Feehan v. Wisconsin Elections Commission et al
2:20-cv-1771

Mike –
The Governor opposes your motion.
First, Judge Pepper could not have been clearer yesterday that she is not entertaining evidentiary issues until and unless
she has resolved the justiciability and dismissal arguments. Continuing to press forward with evidentiary issues at this
point is prejudicial to Governor Evers, whose counsel are working around the clock to satisfy Plaintiffs’ request for
expedited resolution of this case.
Second, we object to the notion that Plaintiff can rely upon anonymous declarants or witnesses. Can you provide any
authority showing that a federal court has allowed such an approach anywhere at any time in a civil matter?
Third, even if you proceed and the Court allows these revised filings, it remains our position, as I outlined on yesterday’s
call, that the Court cannot and should not consider any declarations, affidavits, or reports that Defendants have not had
a full and fair opportunity to test through live cross-examination. We also reserve the right to object to any testimony
being introduced via declaration or affidavit, depending on how a hearing, if ever scheduled, is structured.
Jeff
STAFFORD
ROSENBAUM
Celebrating

140
Years
of
Excellence

Jeffrey A. Mandell | ( h e , h i m , h i s )
jmandell@staffordlaw.com | 608.210.6303 |
222 West Washington Avenue, Suite 900
P.O. Box 17 84 | Madison, Wisconsin 53701-1784
www.staffordlaw.com | LinkedIn

Wisconsin member firm of ALFA International,
the premiere global network of independent law firms.

This is a transmission from the law firm of Stafford Rosenbaum LLP and may contain information which is privileged, confidential, and protected by the attorney- client
or attorney work product privileges. If you are not the addressee, note that any disclosure, copying, distribution, or use of the contents of this message is prohibited.
If you have received this transmission in error, please destroy it and notify me immediately at the telephone number included above.

From: Michael Dean <miked@michaelddeanllc.com>
Sent: Wednesday, December 9, 2020 10:21 AM
To: Murphy, S. Michael <murphysm@doj.state.wi.us>; Jeffrey Mandell <JMandell@staffordlaw.com>
Cc: sidney@federalappeals.com; Howard Kleinhendler (howard@kleinhendler.com) <howard@kleinhendler.com>; Dan
Eastman (daneastman@me.com) <daneastman@me.com>
Subject: Motion to Seal/Restrict Identities Feehan v. Wisconsin Elections Commission et al 2:20-cv-1771
Mike and Jeff
For housekeeping on the exhibits, we would like to submit unredacted copies of

1920

1

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 2 Document 75-1

(1) Exhs. 1 and 12 to Plaintiff’s Amended Complaint as “Sealed” so that the identities of the affiants will be
available to the court only and
(2) Exhibits 4, 13 and 19 as “Restricted” so that identifies of the affiants will be available only to counsel through a
court-generated password.

https://www.wied.uscourts.gov/e-filing-restricted-and-sealed-documents
General L. R. 79(d)(4) requires that a motion to seal be accompanied by a “certification that the parties have conferred in
a good faith attempt to avoid the motion or to limit the scope of the documents or materials subject to sealing under the
motion,” so I am communicating with you only as lead counsel for the current “parties” to the case.
The motion and supporting memo are attached, also a short declaration as an exhibit. There’s some precedent in the 7 th
Cir. that the court can’t leave it to parties to stipulate to seal, so I think I have to file the motion regardless.
Please let me whether you concur with the Motion so I can note that in the Motion and Certification.
Thanks much.
Mike Dean
Michael D. Dean, LLC
Attorney at Law
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
(262) 798-8045 fax
****************************
The information contained in this communication is confidential, may be attorney-client privileged, may constitute inside information,
and is intended only for the use of the addressee. It is the property of Michael D. Dean and Michael D. Dean, LLC. Unauthorized use,
disclosure or copying of this communication or any part thereof is strictly prohibited and may be unlawful. If you have received this
communication in error, please notify us immediately by return e-mail, and destroy this communication and all copies thereof, including
all attachments. Thank you.

1921

2

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 2 Document 75-1

Case 2:20-cv-13134-LVP-RSW ECF No. 50-1, PageID.3164 Filed 12/03/20 Page 1 of 1

I am writing this statement in regard to my identity being known. I have worked in areas
that have made me a known target, have had death threats and even a price put on my head by
foreign terrorist organizations. For the safety of myself and my family, I have requested to
remain redacted. I have found listening devices in my home and have had attempts on myself.
Because of work I have done as a Confidential Human source/ Confidential informant as
well as work investigating spy’s across the globe, my identity is redacted. Not just work I have
done here in America but also working with foreign nations, where even currently I am working
to get Smartmatic out of other nations elections systems and doing election fraud mitigation.
I request that these extreme cases be taken into consideration for my personal safety, my
families safety, the safety of sources I have worked with, I respectfully request that my persona
remain redacted.
I declare under penalty of perjury that the forgoing is true and correct to the best of my
knowledge. Executed this December 3, 2020.

1922

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 1 Document 75-2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S MEMORANDUM IN SUPPORT OF MOTION TO FILE UNREDACTED
COPIES OF (1) EXHIBITS 1 AND 12 TO PLAINTIFF’S AMENDED COMPLANT
UNDER SEAL AND (2) EXHIBITS 4, 13 AND 19 UNDER PROTECTIVE ORDER
______________________________________________________________________________
This Memorandum is in support of Plaintiff’s Motion to File Copies of (1) Exhibits 1 and 12 to
Plaintiff’s Amended Complaint Under Seal and (2) Exhibits 4, 13 and 19 Under Protective Order.
Gen. L. R. 79.(d)(3).1
Eastern District of Wisconsin ECF Policies and Procedures2 allow a “filer to choose between
restricting the document to case participants or completely sealing the document so that it is
available only to the judge.” 3

References to “Exhibits” are to the Amended Complaint Exhibits.
https://www.wied.uscourts.gov/e-filing-restricted-and-sealed-documents
3
Id. , INTRODUCTION.
1
2

1

1923

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 9 Document 76

Plaintiff has designated unredacted Exhibits 1 and 12 as “Sealed,” to be “only by the judge.”4
Plaintiff’s Motion designates unredacted Exhibits 4, 13, and 19 as “Restricted to Case Participant,”
allowing “all attorneys of record to view the document” using an “e-filing log-in and password”
provided by the Court.”5
Plaintiff brings this Motion so that the identities of the Exhs. 1 and 12 affiants will be available
to the court only and the identities of the Exhs. 4, 13 and 19 affiants will be available only to
counsel through a court-generated password. For ease of reference, this Memorandum refers to the
Various Affiants by their Exhibit numbers – “Affiant Ex. 1,” etc.
In support of his Amended Complaint, ECF Doc. # 9, Plaintiff has previously filed redacted
copies of Exhibits 1, 4, 12, 13, and 19 as ECF Doc. ## 9-1, 9-4, 9-12, 9-13, and 9-19. Gen. L. R.
79.(d)(1). Those Exhibits conceal only the Affiants’ personally identifying information – all of
their other testimony is public and unredacted.
“Good cause” exists to so restrict disclosure of the affiants’ identities. Citizens First Nat. Bank
of Princeton v. Cincinnati Ins. Co., 178 F.3d 943, 944 (7th Cir. 1999).
Defendant’s Objection. As indicated in Counsel’s Certification accompanying the Motion,
Defendant Gov. Evers objects to the Motion on grounds that the Court should not consider
declarations or testimony from “anonymous” affiants or declarants and that the Court indicated at

Id. , § 1. “Sealed.”
- Sealed. Documents which are designated as sealed are viewable only by the judge. No attorney
of record, not even the filing attorney, will be able to view this document unless given permission
by the court. Although a notice of electronic filing will be generated, no attorney will be able to
access the document and the filing attorney must serve opposing counsel in paper format. A
motion to restrict/seal must be filed prior to filing any document designated as sealed.
5
Id. , § 1. “Restricted to case participants.”
- Restricted to case participants. This option allows all attorneys of record to view the document,
but not the general public. A notice of electronic filing will be generated from which each attorney
can view the document using their e-filing log-in and password. Although not sealed, this type of
restriction still requires that a motion to restrict/seal be filed prior to the filing of any restricted
documents.
4

2

1924

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 9 Document 76

the December 8 status conference that it will not consider “evidentiary” issues until an evidentiary
hearing is held, if one is ever held at all. Motion Exhibit 1.
First, sealing submission to protect identities is routine. E.g., Hicklin Eng'g, L.C. v. Bartell, 439
F.3d 346, 348–49 (7th Cir. 2006) (“identities of undercover agents”), abrogated on other grounds
by RTP LLC v. ORIX Real Estate Capital, 827 F.3d 689, 691–92 (7th Cir. 2016). See also, e.g.,
Roe v. City of Milwaukee, 37 F. Supp. 2d 1127 (E.D. Wis. 1999) (plaintiff allowed to proceed
anonymously under pseudonym).
More to the point, Gov. Evers’ counsel conflates the narrow issue raised by the Motion with
subsequent issues regarding reliance on the Affiants’ Exhibits in relation to Defendants’ Motions
to Dismiss and a subsequent evidentiary hearing, if one is scheduled at all.
The narrow issue raised by the Motion is only whether the Court will accept filing of Exhibits
1 and 12 under “Seal” and Exhibits 4, 13 and 19 Under Protective Order. Gen. L. R. 79.(d)(3).
Whether and to what extent the Court considers the redacted or unredacted Exhibits in relation to
Defendants’ motions to dismiss or at a possible future evidentiary hearing are different questions.
Accordingly, “anonymity” is not the issue at all. The very purpose of the Motion is to provide
the Court with identities of all Affiants and defense counsel with restricted identities of three
Affiants – in which case none of the witnesses would be anonymous to the Court, and only two
would be anonymous to defense counsel.
As to reliance on either the redacted or unredacted Exhibits in relation to the motions to dismiss,
Gov. Evers bases his motion to dismiss in part on grounds the Affiants are anonymous. Now he
opposes Plaintiff’s motion to disclose their identities to the Court, yet continues to maintain the
Amended Complaint should be dismissed because the Affiants are anonymous. Gov. Evers can’t
have it both ways.

3

1925

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 9 Document 76

Again, the Court’s ruling on Plaintiff’s Motion to Seal/Restrict is a different question than
whether and to what extent the Court will consider Affiants’ declarations, either in relation to the
motions to dismiss or later at an evidentiary hearing, if one is scheduled.6 The Court need reach
those questions to resolve the present Motion to Seal/Restrict.
Background. This case brings a challenge to the November 3, 2020 Presidential election.
Plaintiffs’ evidence shows ballot fraud and illegality, i.e. including counting fraud and illegality in
the Dominion Voting Systems machines and software.
Witnesses Would Be Prejudiced by Disclosure. As explained hereafter, Affiants are in
reasonable fear of harassment and threats to their physical safety and their livelihoods in retaliation
for their coming forward with their testimony. As election controversies have unfolded around the
country, there have been multiple incidents of harassment and threats to destroy the careers of or
physically harm witnesses who come forward with evidence of election fraud and illegality. There
was an organized campaign by The Lincoln Project to destroy the business relationships of major
law firms with their clients for having the temerity to represent the President of the United States
in these controversies. One Pennsylvania law firm withdrew from representing the President only
days after filing a lawsuit on his behalf because of such harassment, abuse, threats, pressure and
economic coercion. Other lawyers for the President have been physically threatened and verbally
abused and forced to obtain personal security to protect them. Therefore, the apprehensions of
Plaintiffs’ witnesses are serious and well-founded. Moreover, the testimony of these witnesses is

Objections raised by Gov. Evers’ counsel regarding evidentiary hearings are premature at this stage of
the case, where the Court is considering threshold motions to dismiss. However, as stated in Plaintiff’s
Motion for Evidentiary Hearing, the Affiants themselves would appear in person at such a hearing, if one
were ever scheduled. And though they would file a request for the hearing to be conducted in camera under
pseudonyms, they would obviously not be “anonymous” to the Court or parties
, only to the public.
6

4

1926

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 9 Document 76

consequential to the matter before this court, namely a legal challenge to the outcome of the
Presidential election in Wisconsin.
Sealed Affiant Exh. 1: Venezuela Whistleblower. Affiant Exh. 1 is a Venezuelan
whistleblower, who is not an American citizen, and swears under oath that “I was selected for the
national security guard detail of the President of Venezuela.” At great risk to himself, he further
reveals that
Importantly, I was a direct witness to the creation and operation of an electronic voting
system in a conspiracy between a company known as Smartmatic and the leaders of
conspiracy with the Venezuelan government. This conspiracy specifically involved
President Hugo Chavez Frias, the person in charge of the National Electoral Council named
Jorge Rodriguez, and principals, representatives, and personnel from Smartmatic which
included … The purpose of this conspiracy was to create and operate a voting system that
could change the votes in elections from votes against persons running the Venezuelan
government to votes in their favor in order to maintain control of the government.

Exh. 1, ¶ 10.
Sealed Affiant Exh. 12: “Spider”. Affiant Exh. 12, called “Spider,” sets forth evidence in his
sworn affidavit regarding his findings of foreign interference in this election, and his background:
I was an electronic intelligence analyst under 305th Military Intelligence with experience
gathering SAM missile system electronic intelligence. I have extensive experience as a
white hat hacker used by some of the top election specialists in the world. The
methodologies I have employed represent industry standard cyber operation toolkits for
digital forensics and OSINT, which are commonly used to certify connections between
servers, network nodes and other digital properties and probe to network system
vulnerabilities.

…
In my professional opinion, this affidavit presents unambiguous evidence that Dominion
Voter Systems and Edison Research have been accessible and were certainly compromised
by rogue actors, such as Iran and China. By using servers and employees connected with
rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, these organizations neglectfully allowed foreign adversaries to access
data and intentionally provided access to their infrastructure in order to monitor and
manipulate elections, including the most recent one in 2020. This represents a complete
failure of their duty to provide basic cyber security. This is not a technological issue, but
rather a governance and basic security issue: if it is not corrected, future elections in the
United States and beyond will not be secure and citizens will not have confidence in the
results.

Exh. 12, ¶¶ 1, 21.
5

1927

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 9 Document 76

Spider’s sworn testimony is further supported by the evidence of a recent October 30, 2020
FBI and CISSA Joint advisory, which identified the hostile nation and foreign interference activity
seen in late October prior to the Presidential election, which stated:
This joint cybersecurity advisory was coauthored by the Cybersecurity and Infrastructure
Security Agency (CISA) and the Federal Bureau of Investigation (FBI). CISA and the FBI
are aware of an Iranian advanced persistent threat (APT) actor targeting U.S. state websites
to include election websites. CISA and the FBI assess this actor is responsible for the mass
dissemination of voter intimidation emails to U.S. citizens and the dissemination of U.S.
election-related disinformation in mid-October 2020.1 (Reference FBI FLASH message
ME-000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the FBI
has identified the targeting of U.S. state election websites was an intentional effort to
influence and interfere with the 2020 U.S. presidential election.

Exhibit 18.
The Advisory further states, “[f]ollowing the review of web server access logs, CISA analysts,
in coordination with the FBI, found instances of the URL and FDM User Agents sending GET
requests to a web resource associated with voter registration data. The activity occurred between
September 29 and October 17, 2020. Suspected scripted activity submitted several hundred
thousand queries iterating through voter identification values and retrieving results with varying
levels of success [Gather Victim Identity Information (T1589)]. A sample of the records identified
by the FBI reveals they match information in the aforementioned propaganda video. Id.
Affiants Exhs. 1 and 12 have shown great courage in coming forward at a critical moment to
deliver the truth to the Court about matters of great importance to our country. They need the
Court’s protection from the readily foreseeable harms of harassment online, and similarly many
federal agents such as CBP officers have recently been “doxed,’ which includes harassed at home,
and in relation to their work, which would accrue to them if their identities were made public.
Thus, good cause exists for the relief requested.
Restricted Affiant Exh. 4: Statistical Analyst. Affiant Exh. 4 is a statistical analyst with a
Bachelor of Science degree in mathematics and a Master of Science degree in statistics. He opines
at great risk to himself:
6

1928

Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 9 Document 76

The p-value of statistical analysis regarding the centerline for the red dots
(Wisconsin counties with Dominion machines) is 0.000000049, pointing to a
statistical impossibility that this is a “random” statistical anomaly. Some external
force caused this anomaly. (par. 10)… and
The results of the analysis and the pattern seen in the included graph strongly
suggest a systemic, system-wide algorithm was enacted by an outside agent,
causing the results of Wisconsin’s vote tallies to be inflated by somewhere between
three and five point six percentage points.
Exh. 4, Par. 13.
For thirty years, Affiant Exh. 4 has performed statistical analysis for major companies and
organizations. For the reasons stated regarding prejudice from disclosure, Affiant he rightly fears
attacks against his reputation, professional career and personal safety.
Restricted Affiant Exh. 13: Voting Systems Analyst. Affiant Exh. 13 explains in technical
detail the lack of proper verification of Wisconsin’s voting machines and systems:
The importance of VSTLs in underrated to protect up from foreign interference by way of
open access via COTS software. Pro V& V who’s EAC certification EXPIRED on 24 FEB
2017 was contracted with the state of WISCONSIN.

Exh. 13.
Affiant Exh. 13 can explain the foreign relationships in the hardware used by Dominion Voting
Systems and its subsidiary Sequoia and explains specifically the port that Dominion uses, which
is called Edge Gateway and that is a part of Akamai Technologies based in Germany and China.
She explains that Dominion Voting Systems works with SCYTL, and that votes on route, before
reporting, go to SCYTL in foreign countries. On the way, they get mixed and an algorithm is
applied, which is done through a secretive process. Among other things, when staying in
Washington, D.C. shortly before the Complaint was filed in this case, an intruder broke into her
hotel room and ransacked it.
For the reasons stated regarding prejudice from disclosure, Affiant Exh. 13 also fears attacks
against his reputation, professional career and personal safety.

7

1929

Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 9 Document 76

Restricted Affiant Exh. 19: Mathematics and Electrical Engineering Analyst. Affiant Exh.
19 is also fearful for his career and personal safety. He has a Masters Degree in Mathematics and
PhD. In Electrical Engineering. He opines:
Given the same data sources, I also assert that Milwaukee precincts exhibit statistical
anomalies that are not normally present in fair elections.. The fraud model hypothesis in
Milwaukee has a posterior probability of 100% to machine precision. This model predicts
105,639 fraudulent Biden ballots in Milwaukee.

Exh. 19, Par. 1. Affiant Exh. 19 makes further sensitive statements regarding conduct of the
election in Milwaukee at Par. 5. For the reasons stated regarding prejudice from disclosure, Affiant
Exh. 19 also fears attacks against his reputation, professional career and personal safety.
Generally. Testimony of Affiants Exh. 1, 4, 12, 13, and 19 have been given at great risk of
these Affiants who hold positions and/or training and experience to obtain such information related
to foreign interference in the 2020 election.
The privacy, reputation, and personal and financial security interests of each Affiant is at grave
risk of if his identity is disclosed. Their interests, as well as those of the parties and the Court,
vastly outweigh the interests of the public in having access to the Affiant’s personally identifying
information, and no less drastic alternatives other than sealing or restricting their unredacted
affidavits to conceal or restrict their identities will provide adequate protection to the them and the
proper functioning of this Court. The common law right of public access to Court filings must
yield to countervailing interests of the Affiants in keeping their identities undisclosed beyond the
parties and the Court to protect them from readily foreseeable threats.
CONCLUSION
Wherefore, the Plaintiffs respectfully request leave of Court to submit Exhibits 1 and 12
under Seal and Exhibits 4, 13 and 19 Restricted to access by Parties’ counsel only.

8

1930

Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 9 Document 76

Respectfully submitted, this 9th day of December, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

9

1931

Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 9 Document 76

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK L.
THOMSEN, MARGE BOSTELMAN, JULIE
M. GLANCEY, DEAN KNUDSON, ROBERT
F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.

DEFENDANTS WISCONSIN ELECTIONS COMMISSION
AND ITS MEMBERS’ REPLY IN SUPPORT OF MOTION TO DISMISS

INTRODUCTION
This lawsuit is the Wisconsin version of cookie-cutter litigation that has been
brought in multiple district courts in different states in an effort to overturn the
outcome of the November 2020 presidential election and disregard the will of the
electorate. It makes wild and anonymous claims about a Venezuelan election
conspiracy in an attempt to spread generalized and speculative doubt about the
Wisconsin election. Plaintiff’s unfortunate attempt in Wisconsin fails as a matter of
law, just as other plaintiff’s attempts are uniformly failing across the country, and
this case should be dismissed.

1932

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 16 Document 77

Earlier this week two other district courts rejected essentially identical cases
for reasons that are applicable here. First, the Eastern District of Michigan denied
preliminary injunctive relief in King v. Whitmer, No. 20-13134, 2020 WL 7134198,
*3–13. (E.D. MI. December 7, 2020). That case was filed by the same lead attorneys
as here and included the same federal legal theories and allegations of problems with
voting machines. In its ruling, the court rejected the same arguments that the
Plaintiff makes here. King, 2020 WL 7134198 at *1. The court found that the case
failed on the Eleventh Amendment, mootness, laches, abstention, and standing.
Id. at *3–13.
Of particular note, the court found that the alleged federal claims rested on
state-law issues, implicating the Eleventh Amendment. Id. at *3–5. The court
observed that what the plaintiffs were really requesting was an order to ignore the
outcome of the election. Id. at *5–6. Laches barred the claim because the plaintiffs
waited until after the election and the vote certification to file a claim. Id. at *6–7.
The court rejected the plaintiffs’ standing arguments based on equal protection
because “Plaintiffs’ alleged injury does not entitle them to seek their requested
remedy because the harm of having one’s vote invalidated or diluted is not remedied
by denying millions of others their right to vote.” Id. at *9 (emphasis in original). And
it held that the plaintiffs had no standing under the Elections and Electors Clauses
because such claims belong to state legislatures, if anyone. Id. at *10–11.
Finally, the court found that the plaintiffs had no likelihood of success on the
merits. Alleged deviations from state law do not state a claim for violations of the

1933

2
Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 16 Document 77

Elections or Electors Clauses. Id. at *11–12. On the widespread fraud theory, it held
that “[w]ith nothing but speculation and conjecture that votes for President Trump
were destroyed, discarded or switched to votes for Vice President Biden, Plaintiffs’
equal protection claim fails.” Id. at *13.
The district court in Michigan closed its decision with a poignant comment that
applies here as well:
this lawsuit seems to be less about achieving the relief Plaintiffs seek—
as much of that relief is beyond the power of this Court—and more about
the impact of their allegations on People’s faith in the democratic
process and their trust in our government. Plaintiffs ask this Court to
ignore the orderly statutory scheme established to challenge elections
and to ignore the will of millions of voters. This, the Court cannot, and
will not, do.
The People have spoken.
Id.
Second, the Northern District of Georgia dismissed the case of Pearson et al v.
Kemp et al., No. 20-cv-04809-TCB (N.D. GA. December 7, 2020.) That was another
case by the same lead attorneys making similar claims. (Pearson Dkt. 1.) Only a
minute entry is docketed for the dismissal, but media has reported on the oral ruling
from the court.1 During the ruling, the court explained that “these types of cases are
not properly before federal courts. These are state elections.”2

On laches, and

particularly regarding the allegations about voting machines, the court explained

Nicole Carr, Federal judge dismisses Sidney Powell lawsuit seeking to decertify
Georgia’s
elections,
WSB-TV2,
(Dec.
7,
2020
6:57pm)
https://www.wsbtv.com/news/local/federal-judge-dismisses-sidney-powell-lawsuit-seekingdecertify-georgias-elections/N7Z5MDKYRJAIZKCPQAXXEEP35Q/
1

2

1934

Id.

3
Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 16 Document 77

that “[t]his suit could have been filed months ago at the time these machines were
adopted.” Instead, the court noted, “the plaintiffs waited until over three weeks after
the election to file the suit.”3
Just as in Michigan and Georgia, this lawsuit fails and should be dismissed.
Defendants Wisconsin Elections Commission and its member (“the Commission”)
explained in its opening brief that Plaintiff’s claims are not justiciable under the
doctrines of standing, laches, and Eleventh Amendment immunity, and his Amended
Complaint fails to plead any plausible federal claim for which relief can be granted.
(Dkt. 54.) In response, Plaintiff repeats his same string of allegations about a wideranging global conspiracy. He argues the untenable position that every supposed
misapplication of state election law violates the Elections and Electors Clauses, the
Equal Protection Clause, and the Due Process Clause—a view that conflicts with both
decades of precedent and the Constitution’s commitment of the times, places, and
manner of holding elections to the States.
Plaintiff’s response to the Commission’s justiciability arguments are equally
unavailing. Even as an elector to Donald Trump, Plaintiff lacks standing and suffers
nothing different than a generalized harm. His attempts to cloak state law violations
as federal claims cannot shield him from the Eleventh Amendment’s bar. And waiting
until your candidate loses to bring claims that materialized months, if not decades,
before the November 3 election does not survive laches. Lastly, his proposed remedy
disenfranchising the votes of hundreds of thousands of Wisconsinites is unlawful and

3

1935

Id.

4
Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 16 Document 77

violates due process. Nothing in Plaintiff’s response sufficiently challenges the
Commission’s arguments, and the Amended Complaint should be dismissed.
ARGUMENT
I.

This case is nonjusticiable because Plaintiff lacks standing.
Plaintiff’s status as a voter and nominated presidential elector does not create

rights reserved to state legislatures or support federal standing for claims of
generalized election irregularities.
A.

Plaintiff has no standing for a claim under the Elections or
Electors Clauses.

The Elections and Electors Clauses of the U.S. Constitution give rights to “the
Legislature” of each state for conducing elections and directing the selection of
presidential electors. U.S. Const. art. I, § 4, cl. 1; U.S. Const. art. II, § 1, cl. 2. Rights
under those clauses belong, therefore, to state legislatures, as courts have routinely
held. See, e.g., Lance v. Coffman, 549 U.S. 437, 442 (2007) (holding individuals lacked
Article III standing to bring claim under the Elections Clause); Bognet v. Sec’y of the
Comm. of Pennsylvania, No. 20-3214, 2020 WL 6686120, *6–7 (3d Cir., Nov. 13, 2020)
(same); Hotze v. Hollins, No. 4:20-cv-03709, 2020 WL 6437668, at *2 (S.D. Tex. Nov.
2, 2020) (holding candidate lacked standing under Elections Clause and concluding
that Supreme Court’s cases “stand for the proposition that only the state legislature
(or a majority of the members thereof) have standing to assert a violation of the
Elections Clause”). Plaintiff has no standing for a claim under those clauses.
Plaintiff relies exclusively on one case, Carson, for his contrary argument.
(Dkt. 72:14 (citing Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020) .) That case does

1936

5
Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 16 Document 77

not even mention the Elections Clause. To the extent it found standing under the
Electors Clause, it is a lone outlier, has no precedential value in this circuit, and is
wrongly decided. The only two decisions that cite Carson, from the Third Circuit and
the Eastern District of Michigan, do not follow it. Bognet, 2020 WL 6686120, *8 n.6
(noting

departure

from

Carson);

King

v.

Whitmer,

No.

CV

20-13134,

2020 WL 7134198, at *11 (E.D. Mich. Dec. 7, 2020) (“This Court, however, is as
unconvinced about the majority’s holding in Carson as the dissent.”). Carson has
never been adopted in the Seventh Circuit and should be unpersuaded by this Court.
Plaintiff’s reliance on his status as a nominated elector is unpersuasive. As the
dissent in Carson noted, nominated presidential electors are entirely derivative of the
actual candidate and “[w]hether they ultimately assume the office of elector depends
entirely on the outcome of the state popular vote for president.” Carson, 978 F.3d
at 1063. Indeed, under Wisconsin law, an elector has no discretion in what candidate
to vote for or anything other than a ministerial job of delivering the outcome of the
election. See Wis. Stat. § 7.75 (presidential elector “shall” vote by ballot for the
persona or party who nominated them). Plaintiff Feehan’s argument that his
interests “are identical to that of President Trump” is meritless; Plaintiff was not
running for President. (Dkt. 72:21.) And the person who was running for that office
is conspicuously absent from this case. Simply put, “[e]lectors are not candidates for
public office as that term is commonly understood.” Carson, 978 F.3d at 1063.
Plaintiff here has no injury related to the Elections or Electors Clauses.

1937

6
Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 16 Document 77

B.

Plaintiff has no standing for a claim under due process or equal
protection.

For reasons explained in the opening briefs, Plaintiff has no standing for a
vote-dilution-theory constitutional claim. Generally, vote dilution occurs in
apportionment or districting situations that improperly apportion population or
representation. Plaintiff’s alleged vote-counting violations are not federal vote
dilution claims—they are garden-variety election disputes that do not implicate the
constitution. (See Dkt. 54:11–15); Shipley v. Chi. Bd. of Election Comm’rs,
947 F.3d 1056, 1062 (7th Cir. 2020) (“A violation of state law does not state a claim
under § 1983, and, more specifically, ‘a deliberate violation of state election laws by
state election officials does not transgress against the Constitution.’” (citation
omitted)); see also Donald J. Trump for President, Inc. v. Boockvar, No. 20-CV-966,
2020 WL 5997680, *46 (W.D. Pa. Oct. 10, 2020) (“[I]t is well-established that even
violations of state election laws by state officials, let alone violations by unidentified
third parties, do not give rise to federal constitutional claims except in unusual
circumstances.”).
In briefing, Plaintiff retreats from the vote-dilution theory in his Amended
Complaint. (Dkt. 72:19.) Instead, he claims that Defendants “sought to actively
disenfranchise” certain voters in violation of the one person, one vote, doctrine.
(Dkt. 72:20.) This is remarkable considering that “disenfranchise” does not appear a
single time in his Amended Complaint, and his requested relief is to literally
disenfranchise hundreds of thousands of people and reverse the outcome of the
election. In any event, he has no “one person one vote” standing.

1938

7
Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 16 Document 77

Plaintiff cites four cases for this novel disenfranchisement theory. (Dkt. 72:20.)
Two are apportionment cases and one is a redistricting case, none of which have any
applicability here. Baker v. Carr, 369 U.S. 186 (1962); (considering a 1901
apportioning the members of the General Assembly); Reynolds v. Sims, 377 U.S. 533
(1964) (considering Alabama legislative apportionment); Whitford v. Nichol,
151 F. Supp. 3d 918, 926 (W.D. Wis. 2015) (challenging the 2012 districting plan for
the Wisconsin Assembly). Remarkably, the fourth is a case where claims alleging
electronic vote-counting irregularities was dismissed as not rising to the level of a
constitutional claim. Bodine v. Elkhart Cty. Election Bd., 788 F.2d 1270, 1272 (7th
Cir. 1986). Bodine cautioned that “If every state election irregularity were considered
a federal constitutional deprivation, federal courts would adjudicate every state
election dispute, and the elaborate state election contest procedures, designed to
assure speedy and orderly disposition of the multitudinous questions that may arise
in the electoral process, would be superseded by a section 1983 gloss.” Id. (quoting
Gamza v. Aguirre, 619 F.2d 449, 453 (5th Cir. 1980)) . This binding decision, and its
warning, forecloses Plaintiff’s claims here.
II.

The Eleventh Amendment bars Plaintiff’s claims.
Plaintiff argues that the Eleventh Amendment is not a bar because he is

raising only federal claims and seeking prospective relief. (Dkt. 72:26.) This is a
straw-man argument because Plaintiff’s claims are based entirely on violations of
state law.

1939

8
Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 16 Document 77

Plaintiff’ cannot escape the Eleventh Amendment by cloaking his state law
claims in federal garb. See, Balsam v. Sec’y of State, 607 F. App’x 177, 183–84 (3d Cir.
2015) (finding Eleventh Amendment bars state law claims even when “premised on
violations of the federal Constitution”); Massey v. Coon, No. 87-3768, 1989 WL 884,
at *2 (9th Cir. Jan. 3, 1989) (affirming dismissal where “on its face the complaint
states a claim under the due process and equal protection clauses of the Constitution,
[but] these constitutional claims are entirely based on the failure of defendants to
conform to state law”).
Indeed, the introductory paragraph of Plaintiff’s complaint expressly alleges
“multiple violations of Wisconsin Statutes Chapters 5 – 12.” (Dkt. 9:1.) He goes on to
allege widespread fraud based on the “Defendants directing Wisconsin clerks and
other election officials to ignore or violate the express requirements of the Wisconsin
Election Code.” (Dkt. 9 ¶ 14.) Plaintiff’s Elections and Electors Clause claim is based
entirely on “three separate instances where Defendants violated the Wisconsin
Election Code” (Dkt. 9 ¶¶ 104–06); his Equal Protection Clause claim rests on how
“Defendants failed to comply with the requirements of the Wisconsin Election Code”
(Dkt. 9 ¶ 116); and his due process claim relies on “Defendants[’] violation of the
Wisconsin Election Code” (Dkt. 9 ¶ 129). His reliance on state law violations is echoed
in his requested relief, where he seeks a declaration that “absentee ballot fraud
occurred in violation of . . . Election laws and under state law.” (Dkt. 9:49.) Plaintiff
cannot camouflage these state law claims as federal violations simply to evade the
Eleventh Amendment bar.

1940

9
Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 16 Document 77

Further, it is not enough to escape the Eleventh Amendment that Plaintiff asks
for prospective relief. (See Dkt. 72:26–27.) The Eleventh Amendment prohibits
federal courts from granting “relief against state officials on the basis of state law,
whether prospective or retroactive.” Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 106 (1984) (emphasis added); see also, Puerto Rico Aqueduct & Sewer
Auth. v. Metcalf & Eddy, Inc., 506 U.S. 139, 146 (1993) (“[t]he doctrine of Ex parte
Young . . . has no application in suits against the States and their agencies, which are
barred regardless of the relief sought”); Peirick v. Ind. Univ.-Purdue Univ.
Indianapolis Athletics Dept., 510 F.3d 681, 696 (7th Cir. 2007) (Eleventh Amendment
bars plaintiff’s claim, “even [ ] her claims for prospective injunctive relief”).
The Commission—comprised of its members, as pled here—is a state entity
that has not consented to suit under § 1983; nor has Congress abrogated the State of
Wisconsin’s Eleventh Amendment immunity. See, Will v. Mich. Dep’t of State Police,
491 U.S. 58, 66 (1989); Joseph v. Bd. of Regents of Univ. of Wis. Sys., 432 F.3d 746,
748 (7th Cir. 2005). Plaintiff cannot masquerade his state law claims as a federal
§ 1983 action. Plaintiff’s claims are, thus, barred by the Eleventh Amendment.
III.

Laches bars this case.
Plaintiff’s primary arguments against laches are (1) the application of laches

is frequently fact-specific, and (2) he did not unreasonably delay in bringing this
action. (Dkt. 72:22–23.) Neither argument is convincing.
First, courts can and do dismiss claims due to laches based on the pleadings or
before trial, particularly when it is clear from the face of the complaint that laches

1941

10
Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 16 Document 77

applies. See, e.g., King, 2020 WL 7134198 at *7 (“The Court concludes that Plaintiffs’
delay results in their claims being barred by laches.”); Aguila Mgmt. LLC v. Int’l Fruit
Genetics, LLC, No. CV-19-00173-PHX-DJH, 2020 WL 736303, at *3 (D. Ariz. Feb. 13,
2020) (Humetewa, J.) (noting that “[c]ourts in this district have previously applied
laches in a motion to dismiss” because “where the elements of laches are apparent on
the face of a complaint, it may be asserted on a motion to dismiss” (citation omitted));
Solow Bldg. Co., LLC v. Nine West Group, Inc., No. 00 Civ. 7685(DC), 2001 WL
736794, at *3 (S.D.N.Y. June 29, 2001) (granting motion to dismiss based on laches,
noting “When the defense of laches is clear on the face of the complaint, and where
it is clear that the plaintiff can prove no set of facts to avoid the insuperable bar, a
court may consider the defense on a motion to dismiss.”) (citation omitted).
Second, Plaintiff’s unreasonable delay in bringing this action is evident from
the pleadings. He bases the claims related to election machines and software on
“expert and fact witness” reports discussing “glitches” and other alleged
vulnerabilities that occurred as far back as 2006. (See Dkt. 9 ¶ 88(A)–(H)). And
Plaintiff’s alleged injuries from the Commission’s guidance on absentee ballot
certification and indefinite confinement arose—and were ripe for challenge—long
before the November 3, 2020 election. The basis of Plaintiff’s claims regarding these
issues is the Commission’s guidance that was issued on October 18, 2016 (absentee
ballot certification), May 13, 2020 (indefinite confinement), and October 19, 2020
(curing absentee ballot certification envelopes). (See Dkt. 9 ¶¶ 40, 44–45, 104–105.)
If Plaintiff had legitimate concerns about the election machines and software, or the

1942

11
Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 16 Document 77

Commission’s guidance regarding absentee ballot and indefinite confinement status,
he could have filed this lawsuit well before the November 3 election—yet he sat back
and did nothing.
In his brief, Plaintiff argues that his delay was justified because “all of the
unlawful conduct occurred during the course of the election and in the post-election
vote counting, manipulation, and even fabrication.” (Dkt. 72:22.) If this were the case,
then Plaintiff fails to state a claim against any defendant in this case, since neither
the Commission nor the Governor took part in any “post-election vote counting.”
Regardless, statements in Plaintiff’s brief cannot change the allegations in his
complaint, see Car Carriers, Inc. v. Ford Motor Co., 745 F.2d 1101, 1107 (7th Cir.
1984) (“it is axiomatic that the complaint may not be amended by the briefs in
opposition to a motion to dismiss”), which clearly outline claims stemming back
months, if not decades. Given this, Plaintiff cannot overcome the doctrine of laches,
which plainly bars the relief he seeks.
IV.

Plaintiff has failed to state a claim for widespread fraud.
Plaintiff has not pled a plausible claim for fraud and falls short of the Rule 9(b)

“particularity” requirement. Fed. R. Civ. P. 9(b). His allegations, even as
supplemented by his briefing, do not connect his conspiracy theory involving foreign
oligarchs and dictators, and a voting system called “Smartmatic,” with any alleged
mis-counted votes in Wisconsin. (Dkt. 9 ¶¶ 7–8; 9-1 ¶¶ 13–20.) Generally alleging a
Venezuelan plot to reelect Hugo Chavez and speculating about conversations
overheard in Colorado does not state a plausible claim for fraud. (See Dkt. 9 ¶¶ 8, 97.)

1943

12
Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 16 Document 77

The Commission’s opening brief detailed the absurdities underlying his factual
allegations, including secret witnesses, Google research, and statistical analysis that
would not even pass basics evidentiary reliability standards. (Dkt. 54:17–22.)
Plaintiff says nothing in response. He makes no attempt to defend his facially
implausible factual underpinnings and implausible theory. Instead, he claims that
his factual bases are “unrebutted.” (Dkt. 72:3.) This claim is wrong, but also misses
the mark. This is briefing on a motion to dismiss, not summary judgment. Whether
evidence has been factually rebutted is not at issue. The question is whether his
claims are plausible and pled with particularity, which they are not.
He also ignores that his completely speculative theory about voting matching
mis-counting is disproven by the publicly-available results of a hand-counted audit of
election machines in Wisconsin. (See Dkt. 52:2–4.)4 Over 140,000 ballots were hand
counted and checked against voting machine results, including 28 Dominion
machines, and no voting equipment issues were found. Likewise, a recount of Dane
and Milwaukee counties did not materially change the vote tallies, which belies any
speculation that election-day results were remotely manipulated. Lastly, Dominion
has publicly responded these specific allegations, further demonstrating the

Memorandum from Meagan Wolfe, Administrator of Wis. Elections Comm’n., to Wis.
Elections Comm’n. (Dec. 1, 2020), https://elections.wi.gov/sites/elections.wi.gov/files/202012/2020%20Audit%20Program%20Update%20for%2012_1_2020%20Meeting%20FINAL.pdf
4

1944

13
Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 16 Document 77

baselessness of Plaintiff’s voter fraud claim. 5 Plaintiff offers no response, and his
contrasting conspiracy theories fail plausibility and common sense.
V.

The remedy the Plaintiff seeks is unlawful.
The Commission’s brief in support of dismissal pointed out that this lawsuit

fails in its premise because the relief that Plaintiff requests is unlawful. (Dkt. 54:22.)
Plaintiff asks to disenfranchise hundreds of thousands of Wisconsinites who properly
voted under election procedures that were in place for the November 2020 election.
That retroactive disenfranchisement would violate voters’ due process rights.
Plaintiff offers no response. This lawsuit plainly cannot proceed.
Once a state legislature has directed that the state’s electors are to be
appointed by popular election, the people’s “right to vote as the legislature has
prescribed is fundamental.” Bush v. Gore, 531 U.S. 98, 104 (2000) (per curiam).
Conducting an election under procedures, and then changing those procedures in a
way that disenfranchises voters violates due process. Bennett v. Yoshina, 140 F.3d
1218, 1227 (9th Cir. 1998) (“a court will strike down an election on substantive due
process grounds if two elements are present: (1) likely reliance by voters on an
established election procedure and/or official pronouncements about what the
procedure will be in the coming election; and (2) significant disenfranchisement that
results from a change in the election procedures.”)

See Dominion Voting, Statement from Dominion on Sidney Powell’s Charges,
https://www.dominionvoting.com/dominion-statement-on-sidney-powell-charges/.
(Nov.
26, 2020).
5

1945

14
Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 16 Document 77

And yet, that is exactly what Plaintiff asks here. The November election was
held after months of careful preparation and public announcement of election
procedures. Nearly 3.3 million Wisconsin voters casted their ballots.6 Plaintiff did not
challenge any of those procedures, or any of the voting equipment before the election.
But, after the votes have been counted and certified, and the outcome is known, he
wants to throw out those votes and reverse the outcome. Due process does not permit
retroactively changing the election rules to reverse the will of the electorate.
CONCLUSION
Defendants Wisconsin Elections Commission and its members request that
this case be dismissed.
Dated this 9th day of December, 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796

Wisconsin Elections Commission, WEC Canvass Reporting System County by County
Report, 2020 General Election, Nov. 3, 2020,
https://elections.wi.gov/sites/elections.wi.gov/files/Statewide%20Results%20All%20Offices%
20%28pre-Presidential%20recount%29.pdf (Nov. 18, 2020).
6

1946

15
Case 2:20-cv-01771-PP Filed 12/09/20 Page 15 of 16 Document 77

COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants Wisconsin
Elections Commission and its members
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1947

16
Case 2:20-cv-01771-PP Filed 12/09/20 Page 16 of 16 Document 77

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
v.

Case No. 20-CV-1771

WISCONSIN ELECTIONS
COMMISSION, and its members ANN S.
JACOBS, MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

DEFENDANTS WISCONSIN ELECTIONS COMMISSION
AND ITS MEMBERS’ SUBMISSION OF
UNREPORTED AUTHORITY PURSUANT TO CIVIL L.R. 7(J)

Defendants Wisconsin Elections Commission, Ann S. Jacob, Mark L.
Thomsen, Marge Bostelman, Julie M. Glancey, Dean Knudson, and Robert F.
Spindell, Jr., by their attorneys, and pursuant to Civil L. R. 7(j), hereby submit
the following unreported authority cited in Defendant Commission and
Commissioner’s Reply in Support of Motion to Dismiss.
1.

1948

King v. Whitmer, No. 20-13134, 2020 WL 7134198 (E.D. Mi.
December 7, 2020);

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 3 Document 78

2.

Bognet v. Sec’y Commonwealth of Pennsylvania, No. 20-3214,
2020 WL 6686120 (3d. Cir. Nov. 13, 2020)– (previously filed at
Dkt. 58-4);

3.

Donald J. Trump for President, Inc. v. Boockvar,
No. 20-CV-966, 2020 WL 5997680 (W.D. Pa. Oct. 10, 2020)–
(previously filed at Dkt. 58-5)

4.

Hotze v. Hollins, No. 4:20-cv-03709, 2020 WL 6437668 (S.D.
Tex. Nov. 2, 2020);

5.

Massey v. Coon, No. 87-3768, 1989 WL 884 (9th Cir. Jan. 3,
1989)

6.

Aguila Mgmt. LLC v. Int’l Fruit Genetics LLC,
No. CV-19-00173-PHX-DJH, 2020 WL 736303 (D. Ariz. Feb.
13, 2020);

7.

Solow Bldg. Co., LLC v. Nine West Group, Inc.,
No. 00 Civ. 7685(DC), 2001 WL 736794 (S.D.N.Y. June 29,
2001)

Dated this 9th day of December, 2020.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
Electronically signed by:
s/ S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796

1949

2
Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 3 Document 78

COLIN T. ROTH
Assistant Attorney General
State Bar #1103985
Attorneys for Defendants
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 266-3094 (Schmelzer)
(608) 264-6219 (Roth)
(608) 294-2907 (Fax)
murphysm@doj.state.wi.us
schmelzerjj@doj.state.wi.us
rothct@doj.state.wi.us

1950

3
Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 3 Document 78

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

2020 WL 7134198
Only the Westlaw citation is currently available.
United States District Court, E.D.
Michigan, Southern Division.

Timothy KING, Marian Ellen Sheridan,
John Earl Haggard, Charles James
Ritchard, James David Hooper, and
Daren Wade Rubingh, Plaintiffs,
v.
Gretchen WHITMER, in her official
capacity as Governor of the State
of Michigan, Jocelyn Benson, in
her official capacity as Michigan
Secretary of State, and Michigan Board
of State Canvassers, Defendants,
and
City of Detroit, Democratic
National Committee and Michigan
Democratic Party, and Robert
Davis, Intervenor-Defendants.
Civil Case No. 20-13134
|
Signed 12/07/2020
Attorneys and Law Firms
Gregory J. Rohl, The Law Offices of Gregory J. Rohl, P.C.,
Novi, MI, for Plaintiffs.
Erik A. Grill, Heather S. Meingast, Michigan Department of
Attorney General, Lansing, MI, for Defendants.
Darryl Bressack, Fink Bressack, David H. Fink, Nathan J.
Fink, Fink + Associates Law, Bloomfield Hills, MI, for
Intervenor-Defendant City of Detroit.
Andrew A. Paterson, Jr., Novi, MI, for Intervenor-Defendant
Robert Davis.
Mary Ellen Gurewitz, Cummings & Cummings Law PLLC,
Royal Oak, MI, Scott R. Eldridge, Miller, Canfield,
Lansing, MI, for Intervenor-Defendants Democratic National
Committee, Michigan Democratic Party.

OPINION AND ORDER DENYING PLAINTIFFS’
“EMERGENCY MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE
RELIEF” (ECF NO. 7)
LINDA V. PARKER, U.S. DISTRICT JUDGE
*1 The right to vote is among the most sacred rights of our
democracy and, in turn, uniquely defines us as Americans.
The struggle to achieve the right to vote is one that has
been both hard fought and cherished throughout our country's
history. Local, state, and federal elections give voice to this
right through the ballot. And elections that count each vote
celebrate and secure this cherished right.
These principles are the bedrock of American democracy and
are widely revered as being woven into the fabric of this
country. In Michigan, more than 5.5 million citizens exercised
the franchise either in person or by absentee ballot during the
2020 General Election. Those votes were counted and, as of
November 23, 2020, certified by the Michigan Board of State
Canvassers (also “State Board”). The Governor has sent the
slate of Presidential Electors to the Archivist of the United
States to confirm the votes for the successful candidate.
Against this backdrop, Plaintiffs filed this lawsuit, bringing
forth claims of widespread voter irregularities and fraud in the
processing and tabulation of votes and absentee ballots. They
seek relief that is stunning in its scope and breathtaking in
its reach. If granted, the relief would disenfranchise the votes
of the more than 5.5 million Michigan citizens who, with
dignity, hope, and a promise of a voice, participated in the
2020 General Election. The Court declines to grant Plaintiffs
this relief.
I. Background
In the weeks leading up to, and on, November 3, 2020, a
record 5.5 million Michiganders voted in the presidential
election (“2020 General Election”). (ECF No. 36-4 at Pg ID
2622.) Many of those votes were cast by absentee ballot. This
was due in part to the coronavirus pandemic and a ballot
measure the Michigan voters passed in 2018 allowing for noreason absentee voting. When the polls closed and the votes
were counted, Former Vice President Joseph R. Biden, Jr. had
secured over 150,000 more votes than President Donald J.
Trump in Michigan. (Id.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1951 Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 12 Document 78-1

1

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

Michigan law required the Michigan State Board of
Canvassers to canvass results of the 2020 General Election
by November 23, 2020. Mich. Comp. Laws § 168.842. The
State Board did so by a 3-0 vote, certifying the results
“for the Electors of President and Vice President,” among
other offices. (ECF No. 36-5 at Pg ID 2624.) That same
day, Governor Gretchen Whitmer signed the Certificates of
Ascertainment for the slate of electors for Vice President
Biden and Senator Kamala D. Harris. (ECF No. 36-6 at Pg ID
2627-29.) Those certificates were transmitted to and received
by the Archivist of the United States. (Id.)
Federal law provides that if election results are contested
in any state, and if the state, prior to election day, has
enacted procedures to decide controversies or contests over
electors and electoral votes, and if these procedures have been
applied, and the decisions are made at least six days before
the electors’ meetings, then the decisions are considered
conclusive and will apply in counting the electoral votes. 3
U.S.C. § 5. This date (the “Safe Harbor” deadline) falls on
December 8, 2020. Under the federal statutory timetable for
presidential elections, the Electoral College must meet on “the
first Monday after the second Wednesday in December,” 3
U.S.C. § 7, which is December 14 this year.
*2 Alleging widespread fraud in the distribution, collection,
and counting of ballots in Michigan, as well as violations
of state law as to certain election challengers and the
manipulation of ballots through corrupt election machines
and software, Plaintiffs filed the current lawsuit against
Defendants at 11:48 p m. on November 25, 2020—the eve
of the Thanksgiving holiday. (ECF No. 1.) Plaintiffs are
registered Michigan voters and nominees of the Republican
Party to be Presidential Electors on behalf of the State of
Michigan. (ECF No. 6 at Pg ID 882.) They are suing Governor
Whitmer and Secretary of State Jocelyn Benson in their
official capacities, as well as the Michigan Board of State
Canvassers.
On November 29, a Sunday, Plaintiffs filed a First
Amended Complaint (ECF No. 6), “Emergency Motion for
Declaratory, Emergency, and Permanent Injunctive Relief
and Memorandum in Support Thereof” (ECF No. 7), and
Emergency Motion to Seal (ECF No. 8). In their First
Amended Complaint, Plaintiffs allege three claims pursuant
to 42 U.S.C. § 1983: (Count I) violation of the Elections
and Electors Clauses; (Count II) violation of the Fourteenth
Amendment Equal Protection Clause; and, (Count III) denial
of the Fourteenth Amendment Due Process Clause. (ECF No.

6.) Plaintiffs also assert one count alleging violations of the
Michigan Election Code. (Id.)
By December 1, motions to intervene had been filed by
the City of Detroit (ECF No. 15), Robert Davis (ECF No.
12), and the Democratic National Committee and Michigan
Democratic Party (“DNC/MDP”) (ECF No. 14). On that
date, the Court entered a briefing schedule with respect to
the motions. Plaintiffs had not yet served Defendants with
their pleading or emergency motions as of December 1.
Thus, on December 1, the Court also entered a text-only
order to hasten Plaintiffs’ actions to bring Defendants into
the case and enable the Court to address Plaintiffs’ pending
motions. Later the same day, after Plaintiffs filed certificates
of service reflecting service of the summons and Amended
Complaint on Defendants (ECF Nos. 21), the Court entered
a briefing schedule with respect to Plaintiffs’ emergency
motions, requiring response briefs by 8:00 p.m. on December
2, and reply briefs by 8:00 p.m. on December 3 (ECF No. 24).
On December 2, the Court granted the motions to intervene.
(ECF No. 28.) Response and reply briefs with respect to
Plaintiffs’ emergency motions were thereafter filed. (ECF
Nos. 29, 31, 32, 34, 35, 36, 37, 39, 49, 50.) Amicus curiae
Michigan State Conference NAACP subsequently moved and
was granted leave to file a brief in support of Defendants’
position. (ECF Nos. 48, 55.) Supplemental briefs also were
filed by the parties. (ECF Nos. 57, 58.)
In light of the limited time allotted for the Court to resolve
Plaintiffs’ emergency motion for injunctive relief—which
Plaintiffs assert “must be granted in advance of December 8,
2020” (ECF No. 7 at Pg ID 1846)—the Court has disposed of
oral argument with respect to their motion pursuant to Eastern
District of Michigan Local Rule 7.1(f).1
1

“ ‘[W]here material facts are not in dispute, or where
facts in dispute are not material to the preliminary
injunction sought, district courts generally need not hold
an evidentiary hearing.’ ” Nexus Gas Transmission, LLC
v. City of Green, Ohio, 757 Fed. Appx. 489, 496-97 (6th
Cir. 2018) (quoting Certified Restoration Dry Cleaning
Network, LLC v. Tenke Corp., 511 F.3d 535, 553 (6th Cir.
2007)) (citation omitted).

II. Standard of Review
A preliminary injunction is “an extraordinary remedy that
may only be awarded upon a clear showing that the plaintiff
is entitled to such relief.” Winter v. Nat. Res. Def. Council,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1952 Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 12 Document 78-1

2

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

Inc., 555 U.S. 7, 22, 129 S.Ct. 365, 172 L.Ed.2d 249
(2008) (citation omitted). The plaintiff bears the burden of
demonstrating entitlement to preliminary injunctive relief.
Leary v. Daeschner, 228 F.3d 729, 739 (6th Cir. 2000). Such
relief will only be granted where “the movant carries his or
her burden of proving that the circumstances clearly demand
it.” Overstreet v. Lexington-Fayette Urban Cnty. Gov't, 305
F.3d 566, 573 (6th Cir. 2002). “Evidence that goes beyond
the unverified allegations of the pleadings and motion papers
must be presented to support or oppose a motion for a
preliminary injunction.” 11A Mary Kay Kane, Fed. Prac. &
Proc. § 2949 (3d ed.).
*3 Four factors are relevant in deciding whether to grant
preliminary injunctive relief: “ ‘(1) whether the movant has
a strong likelihood of success on the merits; (2) whether the
movant would suffer irreparable injury absent the injunction;
(3) whether the injunction would cause substantial harm to
others; and (4) whether the public interest would be served by
the issuance of an injunction.’ ” Daunt v. Benson, 956 F.3d
396, 406 (6th Cir. 2020) (quoting Bays v. City of Fairborn,
668 F.3d 814, 818-19 (6th Cir. 2012)). “At the preliminary
injunction stage, ‘a plaintiff must show more than a mere
possibility of success,’ but need not ‘prove his case in full.’
” Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d 580, 591
(6th Cir. 2012) (quoting Certified Restoration Dry Cleaning
Network, LLC v. Tenke Corp., 511 F.3d 535, 543 (6th Cir.
2007)). Yet, “the proof required for the plaintiff to obtain a
preliminary injunction is much more stringent than the proof
required to survive a summary judgment motion ....” Leary,
228 F.3d at 739.
III. Discussion
The Court begins by discussing those questions that go to
matters of subject matter jurisdiction or which counsel against
reaching the merits of Plaintiffs’ claims. While the Court finds
that any of these issues, alone, indicate that Plaintiffs’ motion
should be denied, it addresses each to be thorough.
A. Eleventh Amendment Immunity
The Eleventh Amendment to the United States Constitution
provides:
The judicial power of the United States shall not be
construed to extend to any suit in law or equity, commenced
or prosecuted against one of the United States by Citizens
of another State, or by Citizens or Subjects of any Foreign
State.

U.S. Const. amend. XI. This immunity extends to suits
brought by citizens against their own states. See, e.g., Ladd
v. Marchbanks, 971 F.3d 574, 578 (6th Cir. 2020) (citing
Hans v. Louisiana, 134 U.S. 1, 18-19, 10 S.Ct. 504, 33 L.Ed.
842 (1890)). It also extends to suits against state agencies
or departments, Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 100, 104 S.Ct. 900, 79 L.Ed.2d 67 (1984)
(citations omitted), and “suit[s] against state officials when
‘the state is the real, substantial party in interest[,]’ ” id. at 101,
104 S.Ct. 900 (quoting Ford Motor Co. v. Dep't of Treasury,
323 U.S. 459, 464, 65 S.Ct. 347, 89 L.Ed. 389 (1945)).
A suit against a State, a state agency or its department, or a
state official is in fact a suit against the State and is barred
“regardless of the nature of the relief sought.” Pennhurst State
Sch. & Hosp., 465 U.S. at 100-02, 104 S.Ct. 900 (citations
omitted). “ ‘The general rule is that a suit is against the
sovereign if the judgment sought would expend itself on
the public treasury or domain, or interfere with the public
administration, or if the effect of the judgment would be to
restrain the Government from acting, or to compel it to act.’
” Id. at 101 n.11, 104 S.Ct. 900 (quoting Dugan v. Rank, 372
U.S. 609, 620, 83 S.Ct. 999, 10 L.Ed.2d 15 (1963)) (internal
quotation marks omitted).
Eleventh Amendment immunity is subject to three
exceptions: (1) congressional abrogation; (2) waiver by
the State; and (3) “a suit against a state official seeking
prospective injunctive relief to end a continuing violation of
federal law.” See Carten v. Kent State Univ., 282 F.3d 391, 398
(6th Cir. 2002) (citations omitted). Congress did not abrogate
the States’ sovereign immunity when it enacted 42 U.S.C. §
1983. Will v. Mich. Dep't of State Police, 491 U.S. 58, 66, 109
S.Ct. 2304, 105 L.Ed.2d 45 (1989). “The State of Michigan
has not consented to being sued in civil rights actions in
the federal courts.” Johnson v. Unknown Dellatifa, 357 F.3d
539, 545 (6th Cir. 2004) (citing Abick v. Michigan, 803 F.2d
874, 877 (6th Cir. 1986)). The Eleventh Amendment therefore
bars Plaintiffs’ claims against the Michigan Board of State
Canvassers. See McLeod v. Kelly, 304 Mich. 120, 7 N.W.2d
240, 242 (1942) (“The board of State canvassers is a State
agency ...”); see also Deleeuw v. State Bd. of Canvassers,
263 Mich.App. 497, 688 N.W.2d 847, 850 (2004). Plaintiffs’
claims are barred against Governor Whitmer and Secretary
Benson unless the third exception applies.
*4 The third exception arises from the Supreme Court's
decision in Ex parte Young, 209 U.S. 123, 28 S.Ct. 441, 52
L.Ed. 714 (1908). But as the Supreme Court has advised:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1953 Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 12 Document 78-1

3

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

To interpret Young to permit a federal-court action to
proceed in every case where prospective declaratory and
injunctive relief is sought against an officer, named in
his individual capacity, would be to adhere to an empty
formalism and to undermine the principle ... that Eleventh
Amendment immunity represents a real limitation on
a federal court's federal-question jurisdiction. The real
interests served by the Eleventh Amendment are not to
be sacrificed to elementary mechanics of captions and
pleading. Application of the Young exception must reflect
a proper understanding of its role in our federal system and
respect for state courts instead of a reflexive reliance on an
obvious fiction.
Idaho v. Coeur d'Alene Tribe of Idaho, 521 U.S. 261, 270,
117 S.Ct. 2028, 138 L.Ed.2d 438 (1997). Further, “the theory
of Young has not been provided an expansive interpretation.”
Pennhurst State Sch. & Hosp., 465 U.S. at 102, 104 S.Ct.
900. “ ‘In determining whether the doctrine of Ex parte Young
avoids an Eleventh Amendment bar to suit, a court need
only conduct a straightforward inquiry into whether [the]
complaint alleges an ongoing violation of federal law and
seeks relief properly characterized as prospective.’ ” Verizon
Md., Inc. v. Pub. Serv. Comm'n, 535 U.S. 635, 645, 122 S.Ct.
1753, 152 L.Ed.2d 871 (2002) (quoting Coeur d'Alene Tribe
of Idaho, 521 U.S. at 296, 117 S.Ct. 2028 (O'Connor, J.,
concurring)).
Ex parte Young does not apply, however, to state law
claims against state officials, regardless of the relief sought.
Pennhurst State Sch. & Hosp., 465 U.S. at 106, 104 S.Ct.
900 (“A federal court's grant of relief against state officials
on the basis of state law, whether prospective or retroactive,
does not vindicate the supreme authority of federal law. On
the contrary, it is difficult to think of a greater intrusion on
state sovereignty than when a federal court instructs state
officials on how to conform their conduct to state law.”);
see also In re Ohio Execution Protocol Litig., 709 F. App'x
779, 787 (6th Cir. 2017) (“If the plaintiff sues a state official
under state law in federal court for actions taken within the
scope of his authority, sovereign immunity bars the lawsuit
regardless of whether the action seeks monetary or injunctive
relief.”). Unquestionably, Plaintiffs’ state law claims against
Defendants are barred by Eleventh Amendment immunity.
The Court then turns its attention to Plaintiffs’ § 1983 claims
against Defendants. Defendants and Intervenor DNC/MDP
contend that these claims are not in fact federal claims as
they are premised entirely on alleged violations of state law.
(ECF No. 31 at Pg ID 2185 (“Here, each count of Plaintiffs’

complaint—even Counts I, II, and III, which claim to raise
violations of federal law—is predicated on the election being
conducted contrary to Michigan law.”); ECF No. 36 at Pg
ID 2494 (“While some of [Plaintiffs’] allegations concern
fantastical conspiracy theories that belong more appropriately
in the fact-free outer reaches of the Internet[,] ... what
Plaintiffs assert at bottom are violations of the Michigan
Election Code.”) Defendants also argue that even if properly
stated as federal causes of action, “it is far from clear whether
Plaintiffs’ requested injunction is actually prospective in
nature, as opposed to retroactive.” (ECF No. 31 at Pg ID
2186.)
*5 The latter argument convinces this Court that Ex parte
Young does not apply. As set forth earlier, “ ‘[i]n order to
fall with the Ex parte Young exception, a claim must seek
prospective relief to end a continuing violation of federal law.’
” Russell v. Lundergan-Grimes, 784 F.3d 1037, 1047 (6th
Cir. 2015) (quoting Diaz v. Mich. Dep't of Corr., 703 F.3d
956, 964 (6th Cir. 2013)). Unlike Russell, which Plaintiffs
cite in their reply brief, this is not a case where a plaintiff is
seeking to enjoin the continuing enforcement of a statute that
is allegedly unconstitutional. See id. at 1044, 1047 (plaintiff
claimed that Kentucky law creating a 300-foot no-politicalspeech buffer zone around polling location violated his freespeech rights). Instead, Plaintiffs are seeking to undo what has
already occurred, as their requested relief reflects.2 (See ECF
No. 7 at Pg ID 1847; see also ECF No. 6 at Pg 955-56.)
2

To the extent Plaintiffs ask the Court to certify the results
in favor of President Donald J. Trump, such relief is
beyond its powers.

Before this lawsuit was filed, the Michigan Board of State
Canvassers had already certified the election results and
Governor Whitmer had transmitted the State's slate of electors
to the United States Archivist. (ECF Nos. 31-4, 31-5.) There
is no continuing violation to enjoin. See Rios v. Blackwell,
433 F. Supp. 2d 848 (N.D. Ohio, 2006); see also King
Lincoln Bronzeville Neighborhood Ass'n v. Husted, No. 2:06cv-00745, 2012 WL 395030, at *4-5 (S.D. Ohio Feb. 7, 2012);
cf. League of Women Voters of Ohio v. Brunner, 548 F.3d
463, 475 (6th Cir. 2008) (finding that the plaintiff's claims
fell within the Ex parte Young doctrine where it alleged that
the problems that plagued the election “are chronic and will
continue absent injunctive relief”).
For these reasons, the Court concludes that the Eleventh
Amendment bars Plaintiffs’ claims against Defendants.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1954 Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 12 Document 78-1

4

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

B. Mootness
This case represents well the phrase: “this ship has sailed.”
The time has passed to provide most of the relief Plaintiffs
request in their Amended Complaint; the remaining relief is
beyond the power of any court. For those reasons, this matter
is moot.
“ ‘Under Article III of the Constitution, federal courts may
adjudicate only actual, ongoing cases or controversies.’ ”
Kentucky v. U.S. ex rel. Hagel, 759 F.3d 588, 595 (6th Cir.
2014) (quoting Lewis v. Cont'l Bank Corp., 494 U.S. 472,
477, 110 S.Ct. 1249, 108 L.Ed.2d 400 (1990)). A case may
become moot “when the issues presented are no longer live or
the parties lack a legally cognizable interest in the outcome.”
U.S. Parole Comm'n v. Geraghty, 445 U.S. 388, 396, 410,
100 S.Ct. 1202, 63 L.Ed.2d 479 (1980) (internal quotation
marks and citation omitted). Stated differently, a case is moot
where the court lacks “the ability to give meaningful relief[.]”
Sullivan v. Benningfield, 920 F.3d 401, 410 (6th Cir. 2019).
This lawsuit was moot well before it was filed on November
25.
In their prayer for relief, Plaintiffs ask the Court to: (a) order
Defendants to decertify the results of the election; (b) enjoin
Secretary Benson and Governor Whitmer from transmitting
the certified election results to the Electoral College; (c) order
Defendants “to transmit certified election results that state that
President Donald Trump is the winner of the election”; (d)
impound all voting machines and software in Michigan for
expert inspection; (e) order that no votes received or tabulated
by machines not certified as required by federal and state law
be counted; and, (f) enter a declaratory judgment that mailin and absentee ballot fraud must be remedied with a manual
recount or statistically valid sampling.3 (ECF No. 6 at Pg ID
955-56, ¶ 233.) What relief the Court could grant Plaintiffs is
no longer available.
3

Plaintiffs also seek an order requiring the impoundment
of all voting machines and software in Michigan for
expert inspection and the production of security camera
footage from the TCF Center for November 3 and 4.
(ECF No. 6 at Pg ID 956, ¶ 233.) This requested relief is
not meaningful, however, where the remaining requests
are no longer available. In other words, the evidence
Plaintiffs seek to gather by inspecting voting machines
and software and security camera footage only would be
useful if an avenue remained open for them to challenge
the election results.

*6 Before this lawsuit was filed, all 83 counties in Michigan
had finished canvassing their results for all elections and
reported their results for state office races to the Secretary
of State and the Michigan Board of State Canvassers in
accordance with Michigan law. See Mich. Comp. Laws §
168.843. The State Board had certified the results of the 2020
General Election and Governor Whitmer had submitted the
slate of Presidential Electors to the Archivists. (ECF No. 31-4
at Pg ID 2257-58; ECF No. 31-5 at Pg ID 2260-63.) The
time for requesting a special election based on mechanical
errors or malfunctions in voting machines had expired. See
Mich. Comp. Laws §§ 168.831, 168.832 (petitions for special
election based on a defect or mechanical malfunction must be
filed “no later than 10 days after the date of the election”).
And so had the time for requesting a recount for the office of
President. See Mich. Comp. Laws § 168.879.
The Michigan Election Code sets forth detailed procedures
for challenging an election, including deadlines for doing so.
Plaintiffs did not avail themselves of the remedies established
by the Michigan legislature. The deadline for them to do so
has passed. Any avenue for this Court to provide meaningful
relief has been foreclosed. As the Eleventh Circuit Court of
Appeals recently observed in one of the many other postelection lawsuits brought to specifically overturn the results
of the 2020 presidential election:
“We cannot turn back the clock and create a world in
which” the 2020 election results are not certified. Fleming
v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015). And it is
not possible for us to delay certification nor meaningful to
order a new recount when the results are already final and
certified.
Wood v. Raffensperger, ––– F.3d ––––, 2020 WL 7094866
(11th Cir. Dec. 5, 2020). And as one Justice of the Supreme
Court of Pennsylvania advised in another 2020 post-election
lawsuit: “there is no basis in law by which the courts
may grant Petitioners’ request to ignore the results of an
election and recommit the choice to the General Assembly to
substitute its preferred slate of electors for the one chosen by
a majority of Pennsylvania's voters.” Kelly v. Commonwealth,
No. 68 MAP 2020, 2020 WL 7018314, at *3 (Pa. Nov. 28,
2020) (Wecht, J., concurring); see also Wood v. Raffensperger,
No. 1:20-cv-04651, 2020 WL 6817513, at *13 (N.D. Ga. Nov.
20, 2020) (concluding that “interfer[ing] with the result of an
election that has already concluded would be unprecedented
and harm the public in countless ways”).
In short, Plaintiffs’ requested relief concerning the 2020
General Election is moot.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1955 Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 12 Document 78-1

5

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

C. Laches
Defendants argue that Plaintiffs are unlikely to succeed on the
merits because they waited too long to knock on the Court's
door. (ECF No. 31 at Pg ID 2175-79; ECF No. 39 at Pg ID
2844.) The Court agrees.
The doctrine of laches is rooted in the principle that “equity
aids the vigilant, not those who slumber on their rights.”
Lucking v. Schram, 117 F.2d 160, 162 (6th Cir. 1941); see also
United States v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 9,
128 S.Ct. 1511, 170 L.Ed.2d 392 (2008) (“A constitutional
claim can become time-barred just as any other claim can.”).
An action may be barred by the doctrine of laches if: (1) the
plaintiff delayed unreasonably in asserting his rights and (2)
the defendant is prejudiced by this delay. Brown-Graves Co.
v. Central States, Se. and Sw. Areas Pension Fund, 206 F.3d
680, 684 (6th Cir. 2000); Ottawa Tribe of Oklahoma v. Logan,
577 F.3d 634, 639 n.6 (6th Cir. 2009) (“Laches arises from
an extended failure to exercise a right to the detriment of
another party.”). Courts apply laches in election cases. Detroit
Unity Fund v. Whitmer, 819 F. App'x 421, 422 (6th Cir. 2020)
(holding that the district court did not err in finding plaintiff's
claims regarding deadline for local ballot initiatives “barred
by laches, considering the unreasonable delay on the part of
[p]laintiffs and the consequent prejudice to [d]efendants”). Cf.
Benisek v. Lamone, ––– U.S. ––––, 138 S. Ct. 1942, 1944,
201 L.Ed.2d 398 (2018) (“[A] party requesting a preliminary
injunction must generally show reasonable diligence. That is
as true in election law cases as elsewhere.”).
*7 First, Plaintiffs showed no diligence in asserting the
claims at bar. They filed the instant action on November 25
—more than 21 days after the 2020 General Election—and
served it on Defendants some five days later on December 1.
(ECF Nos. 1, 21.) If Plaintiffs had legitimate claims regarding
whether the treatment of election challengers complied with
state law, they could have brought their claims well in advance
of or on Election Day—but they did not. Michigan's 83
Boards of County Canvassers finished canvassing by no
later than November 17 and, on November 23, both the
Michigan Board of State Canvassers and Governor Whitmer
certified the election results. Mich. Comp. Laws §§ 168.822,
168.842.0. If Plaintiffs had legitimate claims regarding the
manner by which ballots were processed and tabulated on
or after Election Day, they could have brought the instant
action on Election Day or during the weeks of canvassing
that followed—yet they did not. Plaintiffs base the claims
related to election machines and software on “expert and

fact witness” reports discussing “glitches” and other alleged
vulnerabilities that occurred as far back as 2010. (See e.g.,
ECF No. 6 at Pg ID 927-933, ¶¶ 157(C)-(E), (G), 158, 160,
167.) If Plaintiffs had legitimate concerns about the election
machines and software, they could have filed this lawsuit well
before the 2020 General Election—yet they sat back and did
nothing.
Plaintiffs proffer no persuasive explanation as to why they
waited so long to file this suit. Plaintiffs concede that they
“would have preferred to file sooner, but [ ] needed some
time to gather statements from dozens of fact witnesses,
retain and engage expert witnesses, and gather other data
supporting their Complaint.” (ECF No. 49 at Pg ID 3081.) But
according to Plaintiffs themselves, “[m]anipulation of votes
was apparent shortly after the polls closed on November 3,
2020.” (ECF No. 7 at Pg ID 1837 (emphasis added).) Indeed,
where there is no reasonable explanation, there can be no
true justification. See Crookston v. Johnson, 841 F.3d 396,
398 (6th Cir. 2016) (identifying the “first and most essential”
reason to issue a stay of an election-related injunction is
plaintiff offering “no reasonable explanation for waiting so
long to file this action”). Defendants satisfy the first element
of their laches defense.
Second, Plaintiffs’ delay prejudices Defendants. See Kay v.
Austin, 621 F.2d 809, 813 (6th Cir. 1980) (“As time passes,
the state's interest in proceeding with the election increases
in importance as resources are committed and irrevocable
decisions are made, and the candidate's claim to be a serious
candidate who has received a serious injury becomes less
credible by his having slept on his rights.”) This is especially
so considering that Plaintiffs’ claims for relief are not merely
last-minute—they are after the fact. While Plaintiffs delayed,
the ballots were cast; the votes were counted; and the results
were certified. The rationale for interposing the doctrine of
laches is now at its peak. See McDonald v. Cnty. of San Diego,
124 F. App'x 588 (9th Cir. 2005) (citing Soules v. Kauaians
for Nukolii Campaign Comm., 849 F.2d 1176, 1180 (9th Cir.
1988)); Soules, 849 F.2d at 1180 (quoting Hendon v. N.C.
State Bd. of Elections, 710 F.2d 177, 182 (4th Cir. 1983))
(applying doctrine of laches in post-election lawsuit because
doing otherwise would, “permit, if not encourage, parties who
could raise a claim to lay by and gamble upon receiving a
favorable decision of the electorate and then, upon losing,
seek to undo the ballot results in a court action”).
Plaintiffs could have lodged their constitutional challenges
much sooner than they did, and certainly not three weeks

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1956 Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 12 Document 78-1

6

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

after Election Day and one week after certification of almost
three million votes. The Court concludes that Plaintiffs’ delay
results in their claims being barred by laches.
D. Abstention
As outlined in several filings, when the present lawsuit was
filed on November 25, 2020, there already were multiple
lawsuits pending in Michigan state courts raising the same
or similar claims alleged in Plaintiffs’ Amended Complaint.
(See, e.g., ECF No. 31 at Pg ID 2193-98 (summarizing
five state court lawsuits challenging President Trump's
defeat in Michigan's November 3, 2020 General Election).)
Defendants and the City of Detroit urge the Court to
abstain from deciding Plaintiffs’ claims in deference to those
proceedings under various abstention doctrines. (Id. at Pg ID
2191-2203; ECF No. 39 at Pg ID 2840-44.) Defendants rely
on the abstention doctrine outlined by the Supreme Court in
Colorado River Water Conservation District v. United States,
424 U.S. 800, 96 S.Ct. 1236, 47 L.Ed.2d 483 (1976). The
City of Detroit relies on the abstention doctrines outlined
in Colorado River, as well as those set forth in Railroad
Commission of Texas v. Pullman Co., 312 U.S. 496, 500-01,
61 S.Ct. 643, 85 L.Ed. 971 (1941), and Burford v. Sun Oil Co.,
319 U.S. 315, 63 S.Ct. 1098, 87 L.Ed. 1424 (1943). The City
of Detroit maintains that abstention is particularly appropriate
when resolving election disputes in light of the autonomy
provided to state courts to initially settle such disputes.
*8 The abstention doctrine identified in Colorado River
permits a federal court to abstain from exercising jurisdiction
over a matter in deference to parallel state-court proceedings.
Colorado River, 424 U.S. at 813, 817, 96 S.Ct. 1236.
The exception is found warranted “by considerations of
‘proper constitutional adjudication,’ ‘regard for federal-state
relations,’ or ‘wise judicial administration.’ ” Quackenbush
v. Allstate Ins. Co., 517 U.S. 706, 716, 116 S.Ct. 1712,
135 L.Ed.2d 1 (1996) (quoting Colorado River, 424 U.S. at
817, 96 S.Ct. 1236). The Sixth Circuit has identified two
prerequisites for abstention under this doctrine. Romine v.
Compuserve Corp., 160 F.3d 337, 339-40 (6th Cir. 1998).
First, the court must determine that the concurrent state and
federal actions are parallel. Id. at 339. Second, the court
must consider the factors outlined by the Supreme Court in
Colorado River and subsequent cases:
(1) whether the state court has assumed jurisdiction over
any res or property; (2) whether the federal forum is
less convenient to the parties; (3) avoidance of piecemeal

litigation; ... (4) the order in which jurisdiction was
obtained; ... (5) whether the source of governing law is
state or federal; (6) the adequacy of the state court action to
protect the federal plaintiff's rights; (7) the relative progress
of the state and federal proceedings; and (8) the presence
or absence of concurrent jurisdiction.
Romine, 160 F.3d at 340-41 (internal citations omitted).
“These factors, however, do not comprise a mechanical
checklist. Rather, they require ‘a careful balancing of the
important factors as they apply in a give[n] case’ depending
on the particular facts at hand.” Id. (quoting Moses H. Cone
Mem'l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 16, 103
S.Ct. 927, 74 L.Ed.2d 765 (1983)).
As summarized in Defendants’ response brief and reflected
in their exhibits (see ECF No. 31 at Pg ID 2193-97; see also
ECF Nos. 31-7, 31-9, 31-11, 31-12, 31-14), the allegations
and claims in the state court proceedings and the pending
matter are, at the very least, substantially similar, Romine, 160
F.3d at 340 (“Exact parallelism is not required; it is enough
if the two proceedings are substantially similar.” (internal
quotation marks and citation omitted)). A careful balancing
of the factors set forth by the Supreme Court counsel in favor
of deferring to the concurrent jurisdiction of the state courts.
The first and second factor weigh against abstention. Id.
(indicating that the weight is against abstention where
no property is at issue and neither forum is more or
less convenient). While the Supreme Court has stated
that “ ‘the presence of federal law issues must always
be a major consideration weighing against surrender of
federal jurisdiction in deference to state proceedings[,]’ ”
id. at 342 (quoting Moses H. Cone, 460 U.S. at 26, 103
S.Ct. 927), this “ ‘factor has less significance where the
federal courts’ jurisdiction to enforce the statutory rights in
question is concurrent with that of the state courts.’ ”4 Id.
(quoting Moses H. Cone, 460 U.S. at 25, 103 S.Ct. 927).
Moreover, the Michigan Election Code seems to dominate
even Plaintiffs’ federal claims. Further, the remaining factors
favor abstention.
4

State courts have concurrent jurisdiction over § 1983
actions. Felder v. Casey, 487 U.S. 131, 139, 108 S.Ct.
2302, 101 L.Ed.2d 123 (1988).

“Piecemeal litigation occurs when different courts adjudicate
the identical issue, thereby duplicating judicial effort
and potentially rendering conflicting results.” Id. at 341.
The parallel proceedings are premised on similar factual
allegations and many of the same federal and state claims.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1957 Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 12 Document 78-1

7

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

The state court proceedings were filed well before the
present matter and at least three of those matters are far
more advanced than this case. Lastly, as Congress conferred
concurrent jurisdiction on state courts to adjudicate § 1983
claims, Felder v. Casey, 487 U.S. 131, 139, 108 S.Ct.
2302, 101 L.Ed.2d 123 (1988), “[t]here can be no legitimate
contention that the [Michigan] state courts are incapable
of safeguarding [the rights protected under this statute],”
Romine, 160 F.3d at 342.
*9 For these reasons, abstention is appropriate under the
Colorado River doctrine. The Court finds it unnecessary
to decide whether abstention is appropriate under other
doctrines.
E. Standing
Under Article III of the United States Constitution, federal
courts can resolve only “cases” and “controversies.” U.S.
Const. art. III § 2. The case-or-controversy requirement is
satisfied only where a plaintiff has standing to bring suit. See
Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547,
194 L.Ed.2d 635 (2016), as revised (May 24, 2016). Each
plaintiff must demonstrate standing for each claim he seeks
to press.5 DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352,
126 S.Ct. 1854, 164 L.Ed.2d 589 (2006) (citation omitted)
(“[A] plaintiff must demonstrate standing separately for each
form of relief sought.”). To establish standing, a plaintiff
must show that: (1) he has suffered an injury in fact that is
“concrete and particularized” and “actual or imminent”; (2)
the injury is “fairly ... trace[able] to the challenged action of
the defendant”; and (3) it is “likely, as opposed to merely
speculative, that the injury will be redressed by a favorable
decision.” Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-62, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992) (internal
quotation marks and citations omitted).
5

Plaintiffs assert a due process claim in their Amended
Complaint and twice state in their motion for injunctive
relief that Defendants violated their due process rights.
(See ECF No. 7 at Pg ID 1840, 1844.) Plaintiffs do
not pair either statement with anything the Court could
construe as a developed argument. (Id.) The Court finds
it unnecessary, therefore, to further discuss the due
process claim. McPherson v. Kelsey, 125 F.3d 989, 995
(6th Cir. 1997) (“Issues adverted to in a perfunctory
manner, unaccompanied by some effort at developed
argumentation, are deemed waived.”).

1. Equal Protection Claim
Plaintiffs allege that Defendants engaged in “several
schemes” to, among other things, “destroy,” “discard,” and
“switch” votes for President Trump, thereby “devalu[ing]
Republican votes” and “diluting” the influence of their
individual votes. (ECF No. 49 at Pg ID 3079.) Plaintiffs
contend that “the vote dilution resulting from this systemic
and illegal conduct did not affect all Michigan voters equally;
it had the intent and effect of inflating the number of votes for
Democratic candidates and reducing the number of votes for
President Trump and Republican candidates.” (ECF No. 49 at
Pg ID 3079.) Even assuming that Plaintiffs establish injuryin-fact and causation under this theory,6 their constitutional
claim cannot stand because Plaintiffs fall flat when attempting
to clear the hurdle of redressability.
6

To be clear, the Court does not find that Plaintiffs satisfy
the first two elements of the standing inquiry.

Plaintiffs fail to establish that the alleged injury of votedilution can be redressed by a favorable decision from this
Court. Plaintiffs ask this Court to de-certify the results of
the 2020 General Election in Michigan. But an order decertifying the votes of approximately 2.8 million people
would not reverse the dilution of Plaintiffs’ vote. To be sure,
standing is not “dispensed in gross: A plaintiff's remedy must
be tailored to redress the plaintiff's particular injury.” Gill v.
Whitford, ––– U.S. ––––, 138 S. Ct. 1916, 1934, 201 L.Ed.2d
313 (2018) (citing Cuno, 547 U.S. at 353, 126 S.Ct. 1854);
Cuno, 547 U.S. at 353, 126 S.Ct. 1854 (“The remedy must of
course be limited to the inadequacy that produced the injury
in fact that the plaintiff has established.”) (quoting Lewis v.
Casey, 518 U.S. 343, 357, 116 S.Ct. 2174, 135 L.Ed.2d 606
(1996)). Plaintiffs’ alleged injury does not entitle them to seek
their requested remedy because the harm of having one's vote
invalidated or diluted is not remedied by denying millions of
others their right to vote. Accordingly, Plaintiffs have failed to
show that their injury can be redressed by the relief they seek
and thus possess no standing to pursue their equal protection
claim.

2. Elections Clause & Electors Clause Claims
*10 The provision of the United States Constitution
known as the Elections Clause states in part: “The Times,
Places and Manner of holding Elections for Senators and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1958 Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 12 Document 78-1

8

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

Representatives, shall be prescribed in each State by the
Legislature thereof[.]” U.S. Const. art. I, § 4, cl. 1. “The
Elections Clause effectively gives state governments the
‘default’ authority to regulate the mechanics of federal
elections, Foster v. Love, 522 U.S. 67, 69, 118 S. Ct. 464,
139 L.Ed.2d 369 (1997), with Congress retaining ‘exclusive
control’ to ‘make or alter’ any state's regulations, Colegrove
v. Green, 328 U.S. 549, 554, 66 S. Ct. 1198, 90 L.Ed. 1432
(1946).” Bognet, 980 F.3d at ––––, 2020 WL 6686120, *1.
The “Electors Clause” of the Constitution states: “Each State
shall appoint, in such Manner as the Legislature thereof may
direct, a Number of Electors ....” U.S. Const. art. II, § 1, cl. 2.
Plaintiffs argue that, as “nominees of the Republican Party to
be Presidential Electors on behalf of the State of Michigan,
they have standing to allege violations of the Elections
Clause and Electors Clause because “a vote for President
Trump and Vice-President Pence in Michigan ... is a vote
for each Republican elector[ ], and ... illegal conduct
aimed at harming candidates for President similarly injures
Presidential Electors.” (ECF No. 7 at Pg ID 1837-38; ECF
No. 49 at Pg ID 3076-78.)
But where, as here, the only injury Plaintiffs have alleged is
that the Elections Clause has not been followed, the United
States Supreme Court has made clear that “[the] injury is
precisely the kind of undifferentiated, generalized grievance
about the conduct of government that [courts] have refused
to countenance.”7 Lance v. Coffman, 549 U.S. 437, 442,
127 S.Ct. 1194, 167 L.Ed.2d 29 (2007). Because Plaintiffs
“assert no particularized stake in the litigation,” Plaintiffs fail
to establish injury-in-fact and thus standing to bring their
Elections Clause and Electors Clause claims. Id.; see also
Johnson v. Bredesen, 356 F. App'x 781, 784 (6th Cir. 2009)
(citing Lance, 549 U.S. at 441-42, 127 S.Ct. 1194) (affirming
district court's conclusion that citizens did not allege injuryin-fact to support standing for claim that the state of Tennessee
violated constitutional law).
7

Although separate constitutional provisions, the Electors
Clause and Elections Clause share “considerable
similarity,” Ariz. State Leg. v. Ariz. Indep. Redistricting
Comm'n, 576 U.S. 787, 839, 135 S.Ct. 2652, 192 L.Ed.2d
704, (2015) (Roberts, C.J., dissenting), and Plaintiffs do
not at all distinguish the two clauses in their motion for
injunctive relief or reply brief (ECF No. 7; ECF No. 49 at
Pg ID 3076-78). See also Bognet v. Sec'y Commonwealth
of Pa., 980 F.3d at ––––, 2020 WL 6686120, at *7
(3d Cir. 2020) (applying same test for standing under

both Elections Clause and Electors Clause); Wood, 2020
WL 6817513, at *1 (same); Foster, 522 U.S. at 69, 118
S.Ct. 464 (characterizing Electors Clause as Elections
Clauses’ “counterpart for the Executive Branch”); U.S.
Term Limits, Inc. v. Thornton, 514 U.S. 779, 804-05,
115 S.Ct. 1842, 131 L.Ed.2d 881 (1995) (noting that
state's “duty” under Elections Clause “parallels the duty”
described by Electors Clause).

This is so because the Elections Clause grants rights to “the
Legislature” of “each State.” U.S. Const. art. I, § 4, cl. 1.
The Supreme Court interprets the words “the Legislature,”
as used in that clause, to mean the lawmaking bodies of a
state. Ariz. State Legislature, 135 S.Ct. at 2673. The Elections
Clause, therefore, grants rights to state legislatures and to
other entities to which a State may delegate lawmaking
authority. See id. at 2668. Plaintiffs’ Elections Clause claims
thus belong, if to anyone, Michigan's state legislature. Bognet
v. Secy. Commonwealth of Pa., 980 F.3d 336, ––––, 2020 WL
6686120, *7 (3d Cir. 2020). Plaintiffs here are six presidential
elector nominees; they are not a part of Michigan's lawmaking
bodies nor do they have a relationship to them.
*11 To support their contention that they have standing,
Plaintiffs point to Carson v. Simon, 978 F.3d 1051 (8th Cir.
2020), a decision finding that electors had standing to bring
challenges under the Electors Clause. (ECF No. 7 at Pg
ID 1839 (citing Carson, 978 F.3d at 1057).) In that case,
which was based on the specific content and contours of
Minnesota state law, the Eighth Circuit Court of Appeals
concluded that because “the plain text of Minnesota law
treats prospective electors as candidates,” it too would treat
presidential elector nominees as candidates. Carson, 978 F.3d
at 1057. This Court, however, is as unconvinced about the
majority's holding in Carson as the dissent:
I am not convinced the Electors have Article III standing
to assert claims under the Electors Clause. Although
Minnesota law at times refers to them as “candidates,”
see, e.g., Minn. Stat. § 204B.03 (2020), the Electors are
not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office of
elector depends entirely on the outcome of the state popular
vote for president. Id. § 208.04 subdiv. 1 (“[A] vote cast
for the party candidates for president and vice president
shall be deemed a vote for that party's electors.”). They are
not presented to and chosen by the voting public for their
office, but instead automatically assume that office based
on the public's selection of entirely different individuals.
978 F.3d at 1063 (Kelly, J., dissenting).8

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1959 Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 12 Document 78-1

9

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

8

In addition, at least one Circuit Court, the Third Circuit
Court of Appeals, has distinguished Carson’s holding,
noting:
Our conclusion departs from the recent decision of an
Eighth Circuit panel which, over a dissent, concluded
that candidates for the position of presidential elector
had standing under Bond [v. U.S., 564 U.S. 211, 131
S.Ct. 2355, 180 L.Ed.2d 269 (2011) ] to challenge a
Minnesota state-court consent decree that effectively
extended the receipt deadline for mailed ballots.... The
Carson court appears to have cited language from
Bond without considering the context—specifically,
the Tenth Amendment and the reserved police powers
—in which the U.S. Supreme Court employed that
language. There is no precedent for expanding Bond
beyond this context, and the Carson court cited none.
Bognet, 980 F.3d at –––– n.6, 2020 WL 6686120, at *8
n.6.

Plaintiffs contend that the Michigan Election Code and
relevant Minnesota law are similar. (See ECF No. 49 at Pg
ID 3076-78.) Even if the Court were to agree, it finds that
Plaintiffs lack standing to sue under the Elections and Electors
Clauses.

of any congressional candidate who refused to support term
limits after concluding that such a statute constituted a
“ ‘regulation’ of congressional elections,” as used in the
Elections Clause. 531 U.S. 510, 525-26, 121 S.Ct. 1029,
149 L.Ed.2d 44 (2001) (quoting U.S. Const. art. I, § 4,
cl. 1). In Arizona State Legislature v. Arizona Independent
Redistricting Commission, the Supreme Court upheld an
Arizona law that transferred redistricting power from the state
legislature to an independent commission after concluding
that “the Legislature,” as used in the Elections Clause,
includes any official body with authority to make laws for
the state. 576 U.S. 787, 824, 135 S.Ct. 2652, 192 L.Ed.2d
704 (2015). In each of these cases, federal courts measured
enacted state election laws against the federal mandates
established in the clauses—they did not measure violations of
enacted state elections law against those federal mandates.
*12 By asking the Court to find that they have made out
claims under the clauses due to alleged violations of the
Michigan Election Code, Plaintiffs ask the Court to find that
any alleged deviation from state election law amounts to
a modification of state election law and opens the door to
federal review. Plaintiffs cite to no case—and this Court found
none—supporting such an expansive approach.

F. The Merits of the Request for Injunctive Relief
1. Likelihood of Success on the Merits

b. Violation of the Equal Protection Clause

The Court may deny Plaintiffs’ motion for injunctive relief
for the reasons discussed above. Nevertheless, the Court will
proceed to analyze the merits of their claims.

Most election laws will “impose some burden upon individual
voters.” Burdick v. Takushi, 504 U.S. 428, 433, 112 S.Ct.
2059, 119 L.Ed.2d 245 (1992). But “[o]ur Constitution
leaves no room for classification of people in a way that
unnecessarily abridges this right [to vote].” Reynolds v. Sims,
377 U.S. 533, 559, 84 S.Ct. 1362, 12 L.Ed.2d 506 (1964)
(quoting Wesberry v. Sanders, 376 U.S. 1, 17-18, 84 S.Ct. 526,
11 L.Ed.2d 481 (1964)). Voting rights can be impermissibly
burdened “by a debasement or dilution of the weight of a
citizen's vote just as effectively as by wholly prohibiting the
free exercise of the franchise.” Id. (quoting Reynolds, 377
U.S. at 555, 84 S.Ct. 1362).

a. Violation of the Elections & Electors Clauses
Plaintiffs allege that Defendants violated the Elections Clause
and Electors Clause by deviating from the requirements
of the Michigan Election Code. (See, e.g., ECF No. 6 at
Pg ID 884-85, ¶¶ 36-40, 177-81, 937-38.) Even assuming
Defendants did not follow the Michigan Election Code,
Plaintiffs do not explain how or why such violations of state
election procedures automatically amount to violations of the
clauses. In other words, it appears that Plaintiffs’ claims are
in fact state law claims disguised as federal claims.
A review of Supreme Court cases interpreting these clauses
supports this conclusion. In Cook v. Gralike, the Supreme
Court struck down a Missouri law that required election
officials to print warnings on the ballot next to the name

Plaintiffs attempt to establish an Equal Protection claim based
on the theory that Defendants engaged in “several schemes”
to, among other things, “destroy,” “discard,” and “switch”
votes for President Trump, thereby “devalu[ing] Republican
votes” and “diluting” the influence of their individual votes.
(ECF No. 49 at Pg ID 3079.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1960 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 12 Document 78-1

10

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

But, to be perfectly clear, Plaintiffs’ equal protection claim
is not supported by any allegation that Defendants’ alleged
schemes caused votes for President Trump to be changed
to votes for Vice President Biden. For example, the closest
Plaintiffs get to alleging that physical ballots were altered
in such a way is the following statement in an election
challenger's sworn affidavit: “I believe some of these workers
were changing votes that had been cast for Donald Trump
and other Republican candidates.”9 (ECF No. 6 at Pg ID
902 ¶ 91 (citing Aff. Articia Bomer, ECF No. 6-3 at Pg ID
1008-1010).) But of course, “[a] belief is not evidence” and
falls far short of what is required to obtain any relief, much
less the extraordinary relief Plaintiffs request. United States
v. O'Connor, 1997 WL 413594, at *1 (7th Cir. 1997); see
Brown v. City of Franklin, 430 F. App'x 382, 387 (6th Cir.
2011) (“Brown just submits his belief that Fox's ‘protection’
statement actually meant “protection from retaliation.... An
unsubstantiated belief is not evidence of pretext.”); Booker v.
City of St. Louis, 309 F.3d 464, 467 (8th Cir. 2002) (“Booker's
“belief” that he was singled out for testing is not evidence that
he was.”).10 The closest Plaintiffs get to alleging that election
machines and software changed votes for President Trump to
Vice President Biden in Wayne County is an amalgamation
of theories, conjecture, and speculation that such alterations
were possible. (See e.g., ECF No. 6 at ¶¶ 7-11, 17, 125, 129,
138-43, 147-48, 155-58, 160-63, 167, 171.) And Plaintiffs do
not at all explain how the question of whether the treatment
of election challengers complied with state law bears on the
validity of votes, or otherwise establishes an equal protection
claim.
9

Plaintiffs allege in several portions of the Amended
Complaint that election officials improperly tallied,
counted, or marked ballots. But some of these allegations
equivocate with words such as “believe” and “may”
and none of these allegations identify which presidential
candidate the ballots were allegedly altered to favor. (See,
e.g., ECF No. 6 at Pg ID 902, ¶ 91 (citing Aff. Articia
Bomer, ECF No. 6-3 at Pg ID 1008-10 (“I believe some
of these ballots may not have been properly counted.”)
(emphasis added))); Pg ID 902-03, ¶ 92 (citing Tyson
Aff. ¶ 17) (“At least one challenger observed poll
workers adding marks to a ballot where there was no
mark for any candidate.”).

10

As stated by the Circuit Court for the District of
Columbia Circuit:
The statement is that the complainant believes and
expects to prove some things. Now his belief and
expectation may be in good faith; but it has been

repeatedly held that suspicion is not proof; and it
is equally true that belief and expectation to prove
cannot be accepted as a substitute for fact. The
complainant carefully refrains from stating that he has
any information upon which to found his belief or to
justify his expectation; and evidently he has no such
information. But belief, without an allegation of fact
either upon personal knowledge or upon information
reasonably sufficient upon which to base the belief,
cannot justify the extraordinary remedy of injunction.
Magruder v. Schley, 18 App. D.C. 288, 292, 1901 WL
19131, at *2 (D.C. Cir. 1901).

*13 With nothing but speculation and conjecture that votes
for President Trump were destroyed, discarded or switched
to votes for Vice President Biden, Plaintiffs’ equal protection
claim fails.11 See Wood, ––– F.3d ––––, 2020 WL 7094866
(quoting Bognet, 980 F.3d at ––––, 2020 WL 6686120, at
*12) (“ ‘[N]o single voter is specifically disadvantaged’ if
a vote is counted improperly, even if the error might have
a ‘mathematical impact on the final tally and thus on the
proportional effect of every vote.’ ”).
11

“[T]he Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes
were weighted differently. Instead, Plaintiffs advance
an Equal Protection Clause argument based solely on
state officials’ alleged violation of state law that does
not cause unequal treatment. And if dilution of lawfully
cast ballots by the ‘unlawful’ counting of invalidly
cast ballots were a true equal-protection problem, then
it would transform every violation of state election
law (and, actually, every violation of every law) into
a potential federal equal-protection claim requiring
scrutiny of the government's ‘interest’ in failing to do
more to stop the illegal activity. That is not how the Equal
Protection Clause works.” Bognet, 980 F.3d at ––––,
2020 WL 6686120, at *11.

2. Irreparable Harm & Harm to Others
Because “a finding that there is simply no likelihood of
success on the merits is usually fatal[,]” Gonzales v. Nat'l Bd.
of Med. Examiners, 225 F.3d 620, 625 (6th Cir. 2000) (citing
Mich. State AFL-CIO v. Miller, 103 F.3d 1240, 1249 (6th Cir.
1997)), the Court will not discuss the remaining preliminary
injunction factors extensively.
As discussed, Plaintiffs fail to show that a favorable decision
from the Court would redress their alleged injury. Moreover,
granting Plaintiffs’ injunctive relief would greatly harm the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1961 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 12 Document 78-1

11

Ex. 1

King v. Whitmer, --- F.Supp.3d ---- (2020)
2020 WL 7134198

public interest. As Defendants aptly describe, Plaintiffs’
requested injunction would “upend the statutory process
for election certification and the selection of Presidential
Electors. Moreover, it w[ould] disenfranchise millions of
Michigan voters in favor [of] the preferences of a handful of
people who [are] disappointed with the official results.” (ECF
No. 31 at Pg ID 2227.)
In short, none of the remaining factors weigh in favor of
granting Plaintiffs’ request for an injunction.
IV. Conclusion
For these reasons, the Court finds that Plaintiffs are far from
likely to succeed in this matter. In fact, this lawsuit seems to be
less about achieving the relief Plaintiffs seek—as much of that
relief is beyond the power of this Court—and more about the

End of Document

impact of their allegations on People's faith in the democratic
process and their trust in our government. Plaintiffs ask this
Court to ignore the orderly statutory scheme established to
challenge elections and to ignore the will of millions of voters.
This, the Court cannot, and will not, do.
The People have spoken.
The Court, therefore, DENIES Plaintiffs’ “Emergency
Motion for Declaratory, Emergency, and Permanent
Injunctive Relief” (ECF No. 7.)
IT IS SO ORDERED.
All Citations
--- F.Supp.3d ----, 2020 WL 7134198
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1962 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 12 Document 78-1

12

Ex. 1

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

KeyCite Blue Flag – Appeal Notification
Petition for Certiorari Docketed by JIM BOGNET, ET AL. v. KATHY
BOOCKVAR, SECRETARY OF PENNSYLVANIA, ET AL., U.S.,
November 27, 2020

980 F.3d 336
United States Court of Appeals, Third Circuit.

Jim BOGNET, Donald K. Miller,
Debra Miller, Alan Clark,
Jennifer Clark, Appellants
v.
SECRETARY COMMONWEALTH OF
PENNSYLVANIA; Adams County Board
of Elections; Allegheny County Board
of Elections; Armstrong County Board
of Elections; Beaver County Board
of Elections; Bedford County Board
of Elections; Berks County Board of
Elections; Blair County Board of Elections;
Bradford County Board of Elections;
Bucks County Board of Elections; Butler
County Board of Elections; Cambria
County Board of Elections; Cameron
County Board of Elections; Carbon County
Board of Elections; Centre County Board
of Elections; Chester County Board
of Elections; Clarion County Board of
Elections; Clearfield County Board of
Elections; Clinton County Board of
Elections; Columbia County Board of
Elections; Crawford County Board of
Elections; Cumberland County Board
of Elections; Dauphin County Board of
Elections; Delaware County Board of
Elections; Elk County Board of Elections;
Erie County Board of Elections; Fayette
County Board of Elections; Forest County
Board of Elections; Franklin County

Board of Elections; Fulton County Board
of Elections; Greene County Board of
Elections; Huntingdon County Board
of Elections; Indiana County Board
of Elections; Jefferson County Board
of Elections; Juniata County Board of
Elections; Lackawanna County Board
of Elections; Lancaster County Board
of Elections; Lawrence County Board
of Elections; Lebanon County Board
of Elections; Lehigh County Board of
Elections; Luzerne County Board of
Elections; Lycoming County Board
of Elections; Mckean County Board
of Elections; Mercer County Board
of Elections; Mifflin County Board of
Elections; Monroe County Board of
Elections; Montgomery County Board
of Elections; Montour County Board
of Elections; Northampton County
Board of Elections; Northumberland
County Board of Elections; Perry County
Board of Elections; Philadelphia County
Board of Elections; Pike County Board
of Elections; Potter County Board of
Elections; Schuylkill County Board
of Elections; Snyder County Board of
Elections; Somerset County Board of
Elections; Sullivan County Board of
Elections; Susquehanna County Board of
Elections; Tioga County Board of Elections;
Union County Board of Elections; Venango
County Board of Elections; Warren County
Board of Elections; Washington County
Board of Elections; Wayne County Board
of Elections; Westmoreland County Board
of Elections; Wyoming County Board of
Elections; York County Board of Elections

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1963 Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 19 Document 78-2

1

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Democratic National
Committee, Intervenor
No. 20-3214
|
Submitted Pursuant to Third Circuit
L.A.R. 34.1(a) November 9, 2020
|
(Filed: November 13, 2020)

voters and candidate were not entitled to receive injunction
so close to election.
Affirmed.
*341 On Appeal from the United States District Court for
the Western District of Pennsylvania, District Court No. 3-20cv-00215, District Judge: Honorable Kim. R. Gibson

Synopsis
Background: Voters and congressional candidate brought
action against Secretary of Commonwealth of Pennsylvania
and county boards of elections, seeking to enjoin the counting
of mail-in ballots received during the three-day extension
of the ballot-receipt deadline ordered by the Pennsylvania
Supreme Court, and seeking a declaration that the extension
period and presumption of timeliness was unconstitutional.
The United States District Court for the Western District
of Pennsylvania, Kim R. Gibson, Senior District Judge,
2020 WL 6323121, denied voters' and candidate's motion
for a temporary restraining order (TRO) and preliminary
injunction. Voters and candidate appealed.

Attorneys and Law Firms

Holdings: The Court of Appeals, Smith, Chief Judge, held
that:

Elizabeth A. Dupuis, Molly E. Meachem, Babst Calland, 330
Innovation Boulevard, Suite 302, State College, PA 16803,
Counsel for Armstrong, Bedford, Blair, Centre Columbia,
Dauphin, Fayette, Huntingdon, Indiana, Lackawanna,
Lawrence, Northumberland, Venango, and York County
Boards of Elections

the District Court's order was immediately appealable;
voters and candidate lacked standing to bring action alleging
violation of Constitution's Elections Clause and Electors
Clause;
voters lacked concrete injury for their alleged harm of vote
dilution, and thus voters did not have standing for such claim;
voters lacked particularized injury for their alleged harm of
vote dilution, and thus voters did not have standing for such
claim;
voters failed to allege legally cognizable “preferred class,” for
purposes of standing to claim equal protection violation;
alleged harm from presumption of timeliness was
hypothetical or conjectural, and thus voters did not have
standing to challenge presumption; and

Brian W. Barnes, Peter A. Patterson, David H. Thompson,
Cooper & Kirk, 1523 New Hampshire Avenue, N.W.,
Washington, D.C. 20036, Counsel for Appellants
Mark A. Aronchick, Michele D. Hangley, Robert A. Wiygul,
Hangley Aronchick Segal Pudlin & Schiller, One Logan
Square, 18th & Cherry Streets, 27th Floor, Philadelphia, PA
19103, J. Bart DeLone, Sean A. Kirkpatrick, Keli M. Neary,
Office of Attorney General of Pennsylvania, Strawberry
Square, Harrisburg, PA 17120, Dimitrios Mavroudis, Jessica
Rickabaugh, Joe H. Tucker, Jr., Tucker Law Group, Ten Penn
Center, 1801 Market Street, Suite 2500, Philadelphia, PA
19103, Counsel Secretary Commonwealth of Pennsylvania

Christine D. Steere, Deasey Mahoney & Valentini, 103
Chesley Drive, Lafayette Building, Suite 101, Media, PA
19063, Counsel for Berks County Board of Elections
Edward D. Rogers, Elizabeth V. Wingfield, Ballard Spahr,
1735 Market Street, 51st Floor, Philadelphia, PA 19103,
Counsel for Delaware County Board of Elections
Stephen B. Edwards, Frank J. Lavery, Jr., Andrew W.
Norfleet, Lavery Law, 225 Market Street, Suite 304, P.O. Box
1245, Harrisburg, PA 17108, Counsel for Franklin and Perry
County Boards of Elections
Thomas R. Shaffer, Glassmire & Shaffer Law Offices, 5 East
Third Street, P.O. Box 509, Coudersport, PA 16915, Counsel
for Potter County Board of Elections

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1964 Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 19 Document 78-2

2

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Marc E. Elias, Uzoma Nkwonta, Courtney A. Elgart,
Perkins Coie, 700 13th Street, N.W. Suite 800, Washington,
D.C. 20005, Counsel for Intervenor Democratic National
Committee
Before: SMITH, Chief Judge, SHWARTZ and SCIRICA,
Circuit Judges

OPINION OF THE COURT
SMITH, Chief Judge.
*342 A share in the sovereignty of the state, which is
exercised by the citizens at large, in voting at elections is
one of the most important rights of the subject, and in a
republic ought to stand foremost in the estimation of the
law.—Alexander Hamilton1
The year 2020 has brought the country unprecedented
challenges. The COVID-19 pandemic, which began early
this year and continues today, has caused immense loss and
vast disruption. As this is a presidential election year, the
pandemic has also presented unique challenges regarding
where and how citizens shall vote, as well as when and how
their ballots shall be tabulated. The appeal on which we now
rule stems from the disruption COVID-19 has wrought on
the national elections. We reach our decision, detailed below,
having carefully considered the full breadth of statutory
law and constitutional authority applicable to this unique
dispute over Pennsylvania election law. And we do so with
commitment to a proposition indisputable in our democratic
process: that the lawfully cast vote of every citizen must
count.

*343 I. Background & Procedural History
A. The Elections and Presidential Electors Clause
The U.S. Constitution delegates to state “Legislature[s]”
the authority to regulate the “Times, Places and Manner of
holding Elections for Senators and Representatives,” subject
to Congress's ability to “make or alter such Regulations.”
U.S. Const. art. I, § 4, cl. 1. This provision is known as the
“Elections Clause.” The Elections Clause effectively gives
state governments the “default” authority to regulate the
mechanics of federal elections, Foster v. Love, 522 U.S. 67,
69, 118 S.Ct. 464, 139 L.Ed.2d 369 (1997), with Congress
retaining “exclusive control” to “make or alter” any state's
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S.Ct.

1198, 90 L.Ed. 1432 (1946). Congress has not often wielded
this power but, “[w]hen exercised, the action of Congress, so
far as it extends and conflicts with the regulations of the State,
necessarily supersedes them.” Ex Parte Siebold, 100 U.S.
371, 384, 399, 25 L.Ed. 717 (1879) (“[T]he Constitution and
constitutional laws of the [United States] are ... the supreme
law of the land; and, when they conflict with the laws of the
States, they are of paramount authority and obligation.”). By
statute, Congress has set “[t]he Tuesday next after the 1st
Monday in November, in every even numbered year,” as the
day for the election. 2 U.S.C. § 7.
Much like the Elections Clause, the “Electors Clause” of the
U.S. Constitution provides that “[e]ach State shall appoint,
in such Manner as the Legislature thereof may direct, a
Number of [Presidential] Electors.” U.S. Const. art. II, §
1, cl. 2. Congress can “determine the Time of chusing the
Electors, and the Day on which they shall give their Votes;
which Day shall be the same throughout the United States.”
U.S. Const. art. II, § 1, cl. 4. Congress has set the time
for appointing electors as “the Tuesday next after the first
Monday in November, in every fourth year succeeding every
election of a President and Vice President.” 3 U.S.C. § 1.
This year, both federal statutes dictate that the day for the
election was to fall on Tuesday, November 3 (“Election
Day”).
B. Pennsylvania's Election Code
In keeping with the Constitution's otherwise broad delegation
of authority to states to regulate the times, places, and manner
of holding federal elections, the Pennsylvania General
Assembly has enacted a comprehensive elections code. In
2019, the General Assembly passed Act 77, which (among
other things) established “no-excuse” absentee voting in
Pennsylvania2: all eligible voters in Pennsylvania may vote
by mail without the need to show their absence from their
voting district on the day of the election. 25 Pa. Stat. and Cons.
Stat. §§ 3150.11–3150.17. Under Act 77, “[a]pplications for
mail-in ballots shall be processed if received not later than
five o'clock P.M. of the first Tuesday prior to the day of
any primary or election.” Id. § 3150.12a(a). After Act 77, “a
completed absentee [or mail-in] ballot must be received in
the office of the county board of elections no later than eight
o'clock P.M. on the day of the primary or election” for that
vote to count. Id. §§ 3146.6(c), 3150.16(c).
C. The Pennsylvania Supreme Court Decision

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1965 Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 19 Document 78-2

3

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Soon after Act 77's passage, Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and
several Republican congressional candidates and *344
voters brought suit against Kathy Boockvar, Secretary of the
Commonwealth of Pennsylvania, and all of Pennsylvania's
county boards of elections. That suit, filed in the Western
District of Pennsylvania, alleged that Act 77's “no-excuse”
mail-in voting regime violated both the federal and
Pennsylvania constitutions. Donald J. Trump for Pres., Inc. v.
Boockvar, No. 2:20-cv-966, ––– F.Supp.3d ––––, ––––, 2020
WL 4920952, at *1 (W.D. Pa. Aug. 23, 2020). Meanwhile,
the Pennsylvania Democratic Party and several Democratic
elected officials and congressional candidates filed suit in
Pennsylvania's Commonwealth Court, seeking declaratory
and injunctive relief related to statutory-interpretation issues
involving Act 77 and the Pennsylvania Election Code. See
Pa. Democratic Party v. Boockvar, ––– Pa. ––––, 238 A.3d
345, 352 (2020). Secretary Boockvar asked the Pennsylvania
Supreme Court to exercise extraordinary jurisdiction to allow
it to immediately consider the case, and her petition was
granted without objection. Id. at 354–55.
Pending resolution of the Pennsylvania Supreme Court case,
Secretary Boockvar requested that the Western District of
Pennsylvania stay the federal case. Trump for Pres. v.
Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at *1.
The District Court obliged and concluded that it would abstain
under Railroad Commission of Texas v. Pullman Co., 312 U.S.
496, 61 S.Ct. 643, 85 L.Ed. 971 (1941). See Trump for Pres.
v. Boockvar, ––– F.Supp.3d at ––––, 2020 WL 4920952, at
*21. The RNC then filed a motion for limited preliminary
injunctive relief asking that all mailed ballots be segregated,
but the District Court denied the motion, finding that the
plaintiffs’ harm had “not yet materialized in any actualized or
imminent way.” Donald J. Trump for Pres., Inc. v. Boockvar,
No. 2:20-cv-966, 2020 WL 5407748, at *1 (W.D. Pa. Sept.
8, 2020).
With the federal case stayed, the state court matter
proceeded. The Pennsylvania Democratic Party argued that
a combination of the COVID-19 pandemic and U.S. Postal
Service (“USPS”) mail-delivery delays made it difficult for
absentee voters to timely return their ballots in the June 2020
Pennsylvania primary election. Pa. Democratic Party, 238
A.3d at 362. The Pennsylvania Democratic Party claimed
that this voter disenfranchisement violated the Pennsylvania
Constitution's Free and Equal Elections Clause, art I., § 5,3
and sought, among other things, a weeklong extension of the
deadline for receipt of ballots cast by Election Day in the

upcoming general election—the same deadline for the receipt
of ballots cast by servicemembers residing overseas. Id. at
353–54. Secretary Boockvar originally opposed the extension
deadline; she changed her position after receiving a letter
from USPS General Counsel which stated that Pennsylvania's
ballot deadlines were “incongruous with the Postal Service's
delivery standards,” and that to ensure that a ballot in
Pennsylvania would be received by 8:00 P.M. on Election
Day, the voter would need to mail it a full week in advance,
by October 27, which was also the deadline to apply for a
mail-in ballot. Id. at 365–66; 25 Pa. Stat. and Cons. Stat. §
3150.12a(a). Secretary Boockvar accordingly recommended
a three-day extension to the received-by deadline. Pa.
Democratic Party, 238 A.3d at 364–65.
In a September 17, 2020 decision, the Pennsylvania Supreme
Court concluded that USPS's existing delivery standards
*345 could not meet the timeline built into the Election Code
and that circumstances beyond voters’ control should not lead
to their disenfranchisement. Pa. Democratic Party, 238 A.3d
at 371. The Court accordingly held that the Pennsylvania
Constitution's Free and Equal Elections Clause required a
three-day extension of the ballot-receipt deadline for the
November 3 general election. Id. at 371, 386–87. All ballots
postmarked by 8:00 P.M. on Election Day and received
by 5:00 P.M. on the Friday after Election Day, November
6, would be considered timely and counted (“Deadline
Extension”). Id. at 386–87. Ballots postmarked or signed
after Election Day, November 3, would be rejected. Id. If the
postmark on a ballot received before the November 6 deadline
was missing or illegible, the ballot would be presumed to be
timely unless “a preponderance of the evidence demonstrates
that it was mailed after Election Day” (“Presumption of
Timeliness”). Id. Shortly after the ruling, Pennsylvania voters
were notified of the Deadline Extension and Presumption of
Timeliness.
D. Appeal to the U.S. Supreme Court, and This
Litigation
The Republican Party of Pennsylvania and several
intervenors, including the President pro tempore of the
Pennsylvania Senate, sought to challenge in the Supreme
Court of the United States the constitutionality of the
Pennsylvania Supreme Court's ruling. Because the November
election date was fast approaching, they filed an emergency
application for a stay of the Pennsylvania Supreme Court's
order pending review on the merits. The U.S. Supreme
Court denied the emergency stay request in a 4-4 decision.
Republican Party of Pa. v. Boockvar, No. 20A54, 592

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1966 Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 19 Document 78-2

4

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL
6128193 (Oct. 19, 2020); Scarnati v. Boockvar, No. 20A53,
592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020
WL 6128194 (Oct. 19, 2020). After denial of the stay, the
petitioners moved for expedited consideration of their petition
for certiorari. In denying that motion, Justice Alito noted that,
per the Pennsylvania Attorney General, all county boards
of elections would segregate ballots received during the
Deadline Extension period from those received by 8:00 P.M.
on Election Day. Republican Party of Pa. v. Boockvar, No.
20-542, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d
––––, 2020 WL 6304626, at *2 (Oct. 28, 2020) (Alito, J.,
statement). Justice Alito later issued an order requiring that all
county boards of elections segregate such ballots and count
them separately. Republican Party of Pa. v. Boockvar, No.
20A84, ––– U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6536912 (Mem.) (U.S. Nov. 6, 2020) (Alito, J.).
In the meantime, on October 22, 2020, three days after
the U.S. Supreme Court declined to stay the Pennsylvania
Supreme Court's order, Plaintiffs herein filed this suit in
the Western District of Pennsylvania. Plaintiffs are four
registered voters from Somerset County, Pennsylvania, who
planned to vote in person on Election Day (“Voter Plaintiffs”)
and Pennsylvania congressional candidate Jim Bognet.
Defendants are Secretary Boockvar and each Pennsylvania
county's board of elections.
Bognet, the congressional candidate, claimed that the
Deadline Extension and Presumption of Timeliness “allow[ ]
County Boards of Elections to accept votes ... that would
otherwise be unlawful” and “undermine[ ] his right to run in
an election where Congress has paramount authority to set
the ‘times, places, and manner’ ” of Election Day. Bognet
v. Boockvar, No. 3:20-cv-215, 2020 WL 6323121, at *2
(W.D. Pa. Oct. 28, 2020). The Voter Plaintiffs alleged that by
voting in person, they had to comply with the single, uniform
*346 federal Election Day deadline, whereas mail-in voters
could submit votes any time before 5:00 P.M. on November
6. Id. Thus, they alleged, the Pennsylvania Supreme Court
treated them in an arbitrary and disparate way by elevating
mail-in voters to a “preferred class of voters” in violation
of the U.S. Constitution's Equal Protection Clause and the
single, uniform, federal Election Day set by Congress. Id. The
Voter Plaintiffs also asserted that counting ballots received
after Election Day during the Deadline Extension period
would unlawfully dilute their votes in violation of the Equal
Protection Clause. Id.

All Plaintiffs sought to enjoin Defendants from counting
ballots received during the Deadline Extension period. Id.
They also sought a declaration that the Deadline Extension
and Presumption of Timeliness are unconstitutional under
the Elections Clause and the Electors Clause as well as the
Equal Protection Clause. Id. Because Plaintiffs filed their suit
less than two weeks before Election Day, they moved for a
temporary restraining order (“TRO”), expedited hearing, and
preliminary injunction. Id.
The District Court commendably accommodated Plaintiffs’
request for an expedited hearing, then expeditiously issued
a thoughtful memorandum order on October 28, denying
the motion for a TRO and preliminary injunction. Id. at *7.
The District Court held that Bognet lacked standing because
his claims were too speculative and not redressable. Id. at
*3. Similarly, the District Court concluded that the Voter
Plaintiffs lacked standing to bring their Equal Protection
voter dilution claim because they alleged only a generalized
grievance. Id. at *5.
At the same time, the District Court held that the Voter
Plaintiffs had standing to pursue their Equal Protection
arbitrary-and-disparate-treatment claim. But it found that the
Deadline Extension did not engender arbitrary and disparate
treatment because that provision did not extend the period
for mail-in voters to actually cast their ballots; rather, the
extension only directed that the timely cast ballots of mail-in
voters be counted. Id. As to the Presumption of Timeliness,
the District Court held that the Voter Plaintiffs were likely
to succeed on the merits of their arbitrary-and-disparatetreatment challenge. Id. at *6. Still, the District Court declined
to grant a TRO because the U.S. Supreme Court “has
repeatedly emphasized that ... federal courts should ordinarily
not alter the election rules on the eve of an election.” Id. at
*7 (citing Purcell v. Gonzalez, 549 U.S. 1, 127 S.Ct. 5, 166
L.Ed.2d 1 (2006) (per curiam)). The District Court concluded
that with “less than two weeks before the election. ...
[g]ranting the relief Plaintiffs seek would result in significant
voter confusion; precisely the kind of confusion that Purcell
seeks to avoid.” Id.
Plaintiffs appealed the denial of their motion for a TRO and
preliminary injunction to this Court on October 29, less than
a week before Election Day. Plaintiffs requested an expedited
briefing schedule: specifically, their opening brief would be
due on October 30 and the response briefs on November 2.
Notably, Plaintiffs sought to file a reply brief on November 3
—Election Day. Appellants’ Emergency Mot. for Expedited

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1967 Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 19 Document 78-2

5

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Briefing, Dkt. No. 17. Defendants opposed the expedited
briefing schedule, arguing that Plaintiffs’ own delay had
caused the case to reach this Court mere days before the
election. Sec'y Boockvar's Opp. to Appellants’ Emergency
Mot. for Expedited Briefing, Dkt. No. 33. Defendants
also contended that Plaintiffs sought to punish voters by
invalidating the very rules mail-in voters had relied on when
they cast their ballots. Defendants *347 asked us to deny
the motion for expedited briefing and offered to supply us
with the actual numbers of mail-in ballots received during
the Deadline Extension period together with an approximate
count of how many of those mail-in ballots lacked legible
postmarks. Id.
Even had we granted Plaintiffs’ motion for expedited briefing,
the schedule they proposed would have effectively foreclosed
us from ruling on this appeal before Election Day. So
we denied Plaintiffs’ motion and instead ordered that their
opening brief be filed by November 6. Order, No. 20-3214,
Oct. 30, 2020, Dkt. No. 37. We directed Defendants to file
response briefs by November 9, forgoing receipt of a reply
brief.4 Id. With the matter now fully briefed, we consider
Plaintiffs’ appeal of the District Court's denial of a TRO and
preliminary injunction.

II. Standard of Review
The District Court exercised jurisdiction under 28 U.S.C. §
1331. We exercise jurisdiction under § 1292(a)(1).
Ordinarily, an order denying a TRO is not immediately
appealable. Hope v. Warden York Cnty. Prison, 956 F.3d 156,
159 (3d Cir. 2020). Here, although Bognet and the Voter
Plaintiffs styled their motion as an Emergency Motion for
a TRO and Preliminary Injunction, see Bognet v. Boockvar,
No. 3:20-cv-00215, Dkt. No. 5 (W.D. Pa. Oct. 22, 2020), the
District Court's order plainly went beyond simply ruling on
the TRO request.
Plaintiffs filed their motion for a TRO and a preliminary
injunction on October 22, along with a supporting brief.
Defendants then filed briefs opposing the motion, with
Plaintiffs filing a reply in support of their motion. The District
Court heard argument from the parties, remotely, during a
90-minute hearing. The next day, the District Court ruled on
the merits of the request for injunctive relief. Bognet, 2020
WL 6323121, at *7. The District Court's Memorandum Order
denied both Bognet and the Voter Plaintiffs the affirmative

relief they sought to obtain prior to Election Day, confirming
that the Commonwealth was to count mailed ballots received
after the close of the polls on Election Day but before 5:00
P.M. on November 6.
In determining whether Bognet and the Voter Plaintiffs had
standing to sue, we resolve a legal issue that does not require
resolution of any factual dispute. Our review is de novo.
Blunt v. Lower Merion Sch. Dist., 767 F.3d 247, 266 (3d
Cir. 2014). “When reviewing a district court's denial of a
preliminary injunction, we review the court's findings of fact
for clear error, its conclusions of law de novo, and the ultimate
decision ... for an abuse of discretion.” Reilly v. City of
Harrisburg, 858 F.3d 173, 176 (3d Cir. 2017) (quoting Bimbo
Bakeries USA, Inc. v. Botticella, 613 F.3d 102, 109 (3d Cir.
2010)) (cleaned up).

III. Analysis
A. Standing
Derived from separation-of-powers principles, the law of
standing “serves to prevent the judicial process from being
used to usurp the powers of the political branches.” Clapper
v. Amnesty Int'l USA, 568 U.S. 398, 408, 133 S.Ct. 1138, 185
L.Ed.2d 264 (2013) (citations omitted). Article III of the U.S.
Constitution vests “[t]he judicial Power of the United States”
in both the Supreme Court and “such inferior Courts as the
Congress may from *348 time to time ordain and establish.”
U.S. Const. art. III, § 1. But this “judicial Power” extends
only to “Cases” and “Controversies.” Id. art. III, § 2; see
also Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540,
1547, 194 L.Ed.2d 635 (2016). To ensure that judges avoid
rendering impermissible advisory opinions, parties seeking
to invoke federal judicial power must first establish their
standing to do so. Spokeo, 136 S. Ct. at 1547.
Article III standing doctrine speaks in jargon, but the gist
of its meaning is plain enough. To bring suit, you—and
you personally—must be injured, and you must be injured
in a way that concretely impacts your own protected legal
interests. If you are complaining about something that does
not harm you—and does not harm you in a way that is
concrete—then you lack standing. And if the injury that you
claim is an injury that does no specific harm to you, or if it
depends on a harm that may never happen, then you lack an
injury for which you may seek relief from a federal court.
As we will explain below, Plaintiffs here have not suffered a
concrete, particularized, and non-speculative injury necessary

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1968 Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 19 Document 78-2

6

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

under the U.S. Constitution for them to bring this federal
lawsuit.
The familiar elements of Article III standing require a plaintiff
to have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial decision.”
Id. (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–
61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992); Friends of the
Earth, Inc. v. Laidlaw Env't Servs. (TOC), Inc., 528 U.S. 167,
180–81, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000)). To plead
an injury in fact, the party invoking federal jurisdiction must
establish three sub-elements: first, the “invasion of a legally
protected interest”; second, that the injury is both “concrete
and particularized”; and third, that the injury is “actual or
imminent, not conjectural or hypothetical.” Spokeo, 136 S.
Ct. at 1548 (quoting Lujan, 504 U.S. at 560, 112 S.Ct. 2130);
see also Mielo v. Steak ’n Shake Operations, 897 F.3d 467,
479 n.11 (3d Cir. 2018). The second sub-element requires that
the injury “affect the plaintiff in a personal and individual
way.” Lujan, 504 U.S. at 560 n.1, 112 S.Ct. 2130. As for the
third, when a plaintiff alleges future injury, such injury must
be “certainly impending.” Clapper, 568 U.S. at 409, 133 S.Ct.
1138 (quoting Lujan, 504 U.S. at 565 n.2, 112 S.Ct. 2130).
Allegations of “possible” future injury simply aren't enough.
Id. (quoting Whitmore v. Arkansas, 495 U.S. 149, 158, 110
S.Ct. 1717, 109 L.Ed.2d 135 (1990)). All elements of standing
must exist at the time the complaint is filed. See Lujan, 504
U.S. at 569 n.4, 112 S.Ct. 2130.
With these guideposts in mind, we turn to whether Plaintiffs
have pleaded an Article III injury. They bring several
claims under 42 U.S.C. § 1983, asserting deprivation of
their constitutional rights. They allege that Defendants’
implementation of the Pennsylvania Supreme Court's
Deadline Extension and Presumption of Timeliness violates
the Elections Clause of Article I, the Electors Clause of
Article II, and the Equal Protection Clause of the Fourteenth
Amendment. Because Plaintiffs lack standing to assert these
claims, we will affirm the District Court's denial of injunctive
relief.

1. Plaintiffs lack standing under the Elections Clause and
Electors Clause.
Federal courts are not venues for plaintiffs to assert a bare
right “to have the Government act in accordance with law.”
*349 Allen v. Wright, 468 U.S. 737, 754, 104 S.Ct. 3315, 82

L.Ed.2d 556 (1984), abrogated on other grounds by Lexmark
Int'l, Inc. v. Static Control Components, Inc., 572 U.S. 118,
126–27, 134 S.Ct. 1377, 188 L.Ed.2d 392 (2014). When
the alleged injury is undifferentiated and common to all
members of the public, courts routinely dismiss such cases as
“generalized grievances” that cannot support standing. United
States v. Richardson, 418 U.S. 166, 173–75, 94 S.Ct. 2940, 41
L.Ed.2d 678 (1974). Such is the case here insofar as Plaintiffs,
and specifically candidate Bognet, theorize their harm as the
right to have government administered in compliance with the
Elections Clause and Electors Clause.
To begin with, private plaintiffs lack standing to sue for
alleged injuries attributable to a state government's violations
of the Elections Clause. For example, in Lance v. Coffman,
549 U.S. 437, 127 S.Ct. 1194, 167 L.Ed.2d 29 (2007) (per
curiam), four private citizens challenged in federal district
court a Colorado Supreme Court decision invalidating a
redistricting plan passed by the state legislature and requiring
use of a redistricting plan created by Colorado state courts.
Id. at 438, 127 S.Ct. 1194. The plaintiffs alleged that the
Colorado Supreme Court's interpretation of the Colorado
Constitution violated the Elections Clause “by depriving the
state legislature of its responsibility to draw congressional
districts.” Id. at 441, 127 S.Ct. 1194. The U.S. Supreme Court
held that the plaintiffs lacked Article III standing because
they claimed harm only to their interest, and that of every
citizen, in proper application of the Elections Clause. Id.
at 442, 127 S.Ct. 1194 (“The only injury plaintiffs allege
is that the law—specifically the Elections Clause—has not
been followed.”). Their relief would have no more directly
benefitted them than the public at large. Id. The same is
true here. If anything, Plaintiffs’ “interest in the State's
ability to ‘enforce its duly enacted laws’ ” is even less
compelling because Pennsylvania's “election officials support
the challenged decree.” Republican Nat'l Comm. v. Common
Cause R.I., No. 20A28, 591 U.S. ––––, ––– S.Ct. ––––, ––––,
––– L.Ed.2d ––––, 2020 WL 4680151 (Mem.), at *1 (Aug.
13, 2020) (quoting Abbott v. Perez, ––– U.S. ––––, 138 S. Ct.
2305, 2324 n.17, 201 L.Ed.2d 714 (2018)).
Because the Elections Clause and the Electors Clause
have “considerable similarity,” Ariz. State Legislature v.
Ariz. Indep. Redistricting Comm'n, 576 U.S. 787, 839,
135 S.Ct. 2652, 192 L.Ed.2d 704 (2015) (Roberts, C.J.,
dissenting) (discussing how Electors Clause similarly vests
power to determine manner of appointing electors in “the
Legislature” of each State), the same logic applies to
Plaintiffs’ alleged injury stemming from the claimed violation

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1969 Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 19 Document 78-2

7

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

of the Electors Clause. See also Foster, 522 U.S. at 69,
118 S.Ct. 464 (characterizing Electors Clause as Elections
Clause's “counterpart for the Executive Branch”); U.S. Term
Limits, Inc. v. Thornton, 514 U.S. 779, 804–05, 115 S.Ct.
1842, 131 L.Ed.2d 881 (1995) (noting that state's “duty”
under Elections Clause “parallels the duty” described by
Electors Clause).
Even a party that meets Article III standing requirements
must ordinarily rest its claim for relief on violation of its
own rights, not those of a third party. Pitt News v. Fisher,
215 F.3d 354, 361–62 (3d Cir. 2000). Plaintiffs assert that
the Pennsylvania Supreme Court's Deadline Extension and
Presumption of Timeliness usurped the General Assembly's
prerogative under the Elections Clause to prescribe “[t]he
Times, Places and Manner of holding Elections.” U.S. Const.
art. I, § 4, cl. 1. The Elections Clause grants that right to “the
Legislature” of “each State.” Id. Plaintiffs’ Elections Clause
claims thus *350 “belong, if they belong to anyone, only
to the Pennsylvania General Assembly.” Corman v. Torres,
287 F. Supp. 3d 558, 573 (M.D. Pa. 2018) (three-judge panel)
(per curiam). Plaintiffs here are four individual voters and
a candidate for federal office; they in no way constitute
the General Assembly, nor can they be said to comprise
any part of the law-making processes of Pennsylvania. Ariz.
State Legislature, 576 U.S. at 824, 135 S.Ct. 2652.5 Because
Plaintiffs are not the General Assembly, nor do they bear any
conceivable relationship to state lawmaking processes, they
lack standing to sue over the alleged usurpation of the General
Assembly's rights under the Elections and Electors Clauses.
No member of the General Assembly is a party to this lawsuit.
That said, prudential standing can suspend Article III's
general prohibition on a litigant's raising another person's
legal rights. Yet Plaintiffs don't fit the bill. A plaintiff may
assert the rights of another if he or she “has a ‘close’
relationship with the person who possesses the right” and
“there is a ‘hindrance’ to the possessor's ability to protect
his own interests.” Kowalski v. Tesmer, 543 U.S. 125, 130,
125 S.Ct. 564, 160 L.Ed.2d 519 (2004) (citation omitted).
Plaintiffs cannot invoke this exception to the rule against
raising the rights of third parties because they enjoy no close
relationship with the General Assembly, nor have they alleged
any hindrance to the General Assembly's ability to protect its
own interests. See, e.g., Corman, 287 F. Supp. 3d at 573. Nor
does Plaintiffs’ other theory of prudential standing, drawn
from Bond v. United States, 564 U.S. 211, 131 S.Ct. 2355, 180
L.Ed.2d 269 (2011), advance the ball.

In Bond, the Supreme Court held that a litigant has prudential
standing to challenge a federal law that allegedly impinges on
the state's police powers, “in contravention of constitutional
principles of federalism” enshrined in the Tenth Amendment.
Id. at 223–24, 131 S.Ct. 2355. The defendant in Bond
challenged her conviction under 18 U.S.C. § 229, which
Congress enacted to comply with a chemical weapons treaty
that the United States had entered. Id. at 214–15, 131 S.Ct.
2355. Convicted under the statute she sought to challenge,
Bond satisfied Article III's standing requirements. Id. at
217, 131 S.Ct. 2355 (characterizing Bond's sentence and
incarceration as concrete, and redressable by invalidation
of her conviction); id. at 224–25, 131 S.Ct. 2355 (noting
that Bond was subject to “[a] law,” “prosecution,” and
“punishment” she might not have faced “if the matter were
left for the Commonwealth of Pennsylvania to decide”). She
argued that her conduct was “local in nature” such that §
229 usurped the Commonwealth's reserved police powers.
Id. Rejecting the Government's contention that Bond was
barred as a third party from asserting the rights of the
Commonwealth, id. at 225, 131 S.Ct. 2355, the Court held
that “[t]he structural principles secured by the separation of
powers protect the individual as well” as the State. *351 Id.
at 222, 131 S.Ct. 2355 (“Federalism also protects the liberty
of all persons within a State by ensuring that laws enacted
in excess of delegated governmental power cannot direct or
control their actions. ... When government acts in excess of
its lawful powers, that [personal] liberty is at stake.”).
But the nub of Plaintiffs’ argument here is that the
Pennsylvania Supreme Court intruded on the authority
delegated to the Pennsylvania General Assembly under
Articles I and II of the U.S. Constitution to regulate federal
elections. They do not allege any violation of the Tenth
Amendment, which provides that “[t]he powers not delegated
to the United States by the Constitution, nor prohibited by
it to the States, are reserved to the States respectively, or to
the people.” U.S. Const. amend. X. Nor could they. After
all, states have no inherent or reserved power over federal
elections. U.S. Term Limits, 514 U.S. at 804–05, 115 S.Ct.
1842. When “deciding issues raised under the Elections
Clause,” courts “need not be concerned with preserving a
‘delicate balance’ between competing sovereigns.” Gonzalez
v. Arizona, 677 F.3d 383, 392 (9th Cir. 2012). Either federal
and state election law “operate harmoniously in a single
procedural scheme,” or they don't—and the federal law
preempts (“alter[s]”) state election law under the Elections
Clause. Id. at 394. An assessment that the Pennsylvania
Supreme Court lacked the legislative authority under the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1970 Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 19 Document 78-2

8

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

state's constitution necessary to comply with the Elections
Clause (Appellants’ Br. 24–27) does not implicate Bond,
the Tenth Amendment, or even Article VI's Supremacy

by choosing to make expenditures based on hypothetical

Clause.6 See Gonzalez, 677 F.3d at 390–92 (contrasting
Elections Clause with Supremacy Clause and describing
former as “unique,” containing “[an] unusual delegation of
power,” and “unlike virtually all other provisions of the
Constitution”). And, of course, third-party standing under
Bond still presumes that the plaintiff otherwise meets the
requirements of Article III; as discussed above, Plaintiffs do
not.

Plaintiffs therefore lack Article III standing to challenge
Defendants’ implementation of the Pennsylvania Supreme
Court's Deadline Extension and Presumption of Timeliness
under the Elections Clause and Electors Clause.

Plaintiff Bognet, a candidate for Congress who is currently a
private citizen, does not plead a cognizable injury by alleging
a “right to run in an election where Congress has paramount
authority,” Compl. ¶ 69, or by pointing to a “threatened”
reduction in the competitiveness of his election from counting
absentee ballots received within three days after Election
Day. Appellants’ Br. 21. Bognet does not explain how that
“right to run” affects him in a particularized way when,
in fact, all candidates in Pennsylvania, including Bognet's
opponent, are subject to the same rules. And Bognet does
not explain how counting more timely cast votes would lead
to a less competitive race, nor does he offer any evidence
tending to show that a greater proportion of mailed ballots
received after Election Day than on or before Election Day
would be cast for Bognet's opponent. What's more, for Bognet
to have standing to enjoin the counting of ballots arriving
after Election Day, such votes would have to be sufficient
in number *352 to change the outcome of the election to
Bognet's detriment. See, e.g., Sibley v. Alexander, 916 F.
Supp. 2d 58, 62 (D.D.C. 2013) (“[E]ven if the Court granted
the requested relief, [plaintiff] would still fail to satisfy
the redressability element [of standing] because enjoining
defendants from casting the ... votes would not change the
outcome of the election.” (citing Newdow v. Roberts, 603
F.3d 1002, 1011 (D.C. Cir. 2010) (citations omitted)). Bognet
does not allege as much, and such a prediction was inherently
speculative when the complaint was filed. The same can be
said for Bognet's alleged wrongfully incurred expenditures
and future expenditures. Any harm Bognet sought to avoid in
making those expenditures was not “certainly impending”—
he spent the money to avoid a speculative harm. See Donald
J. Trump for Pres., Inc. v. Boockvar, No. 2:20-cv-966, –––
F.Supp.3d ––––, ––––, 2020 WL 5997680, at *36 (W.D. Pa.
Oct. 10, 2020). Nor are those expenditures “fairly traceable”
under Article III to the actions that Bognet challenges.
See, e.g., Clapper, 568 U.S. at 402, 416, 133 S.Ct. 1138
(rejecting argument that plaintiff can “manufacture standing

Stressing the “personal” nature of the right to vote, the
Voter Plaintiffs assert two claims under the Equal Protection

future harm that is not certainly impending”).7

2. The Voter Plaintiffs lack standing under the Equal
Protection Clause.

Clause.8 First, they contend that the influence of their votes,
cast in person on Election Day, is “diluted” both by (a)
mailed ballots cast on or before Election Day but received
between Election Day and the Deadline Extension date,
ballots which Plaintiffs assert cannot be lawfully counted; and
(b) mailed ballots that were unlawfully cast (i.e., placed in
the mail) after Election Day but are still counted because of
the Presumption of Timeliness. Second, the Voter Plaintiffs
allege that the Deadline Extension and the Presumption
of Timeliness create a preferred class of voters based on
“arbitrary and disparate treatment” that values “one person's
vote over that of another.” Bush v. Gore, 531 U.S. 98, 104–05,
121 S.Ct. 525, 148 L.Ed.2d 388 (2000). The Voter Plaintiffs
lack Article III standing to assert either injury.

a. Vote Dilution
As discussed above, the foremost element of standing is
injury in fact, which requires the plaintiff to show a harm
that is both “concrete and particularized” and “actual or
imminent, not conjectural or hypothetical.” Spokeo, 136 S.
Ct. at 1547–48 (citation omitted). The Voter Plaintiffs lack
standing to redress their alleged vote dilution because that
alleged injury is not concrete as to votes counted under
the Deadline Extension, nor is it particularized for Article
III purposes as to votes counted *353 under the Deadline
Extension or the Presumption of Timeliness.

i. No concrete injury from vote dilution attributable to the
Deadline Extension.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1971 Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 19 Document 78-2

9

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

The Voter Plaintiffs claim that Defendants’ implementation of
the Deadline Extension violates the Equal Protection Clause
because “unlawfully” counting ballots received within three
days of Election Day dilutes their votes. But the source of this
purported illegality is necessarily a matter of state law, which
makes any alleged harm abstract for purposes of the Equal
Protection Clause. And the purported vote dilution is also not
concrete because it would occur in equal proportion without
the alleged procedural illegality—that is, had the General
Assembly enacted the Deadline Extension, which the Voter
Plaintiffs do not challenge substantively.9
The concreteness of the Voter Plaintiffs’ alleged vote dilution
stemming from the Deadline Extension turns on the federal
and state laws applicable to voting procedures. Federal law
does not provide for when or how ballot counting occurs.
See, e.g., Trump for Pres., Inc. v. Way, No. 20-cv-01753, –––
F.Supp.3d ––––, ––––, 2020 WL 5912561, at *12 (D.N.J.
Oct. 6, 2020) (“Plaintiffs direct the Court to no federal law
regulating methods of determining the timeliness of mail-in
ballots or requiring that mail-in ballots be postmarked.”); see
also Smiley v. Holm, 285 U.S. 355, 366, 52 S.Ct. 397, 76 L.Ed.
795 (1932) (noting that Elections Clause delegates to state
lawmaking processes all authority to prescribe “procedure
and safeguards” for “counting of votes”). Instead, the
Elections Clause delegates to each state's lawmaking function
the authority to prescribe such procedural regulations
applicable to federal elections. U.S. Term Limits, 514 U.S.
at 832–35, 115 S.Ct. 1842 (“The Framers intended the
Elections Clause to grant States authority to create procedural
regulations .... [including] ‘whether the electors should vote
by ballot or vivâ voce ....’ ” (quoting James Madison, 2
Records of the Federal Convention of 1787, at 240 (M.
Farrand ed. 1911) (cleaned up)); Smiley, 285 U.S. at 366, 52
S.Ct. 397 (describing state authority under Elections Clause
“to provide a complete code for congressional elections ...
in relation to notices, registration, supervision of voting,
protection of voters, prevention of fraud and corrupt practices,
counting of votes, duties of inspectors and canvassers, and
making and publication of election returns”). That delegation
of authority embraces all procedures “which experience
shows are necessary in order to enforce the fundamental right
involved.” Smiley, 285 U.S. at 366, 52 S.Ct. 397. Congress
exercises its power to “alter” state election regulations only if
the state regime cannot “operate harmoniously” with federal
election laws “in a single procedural scheme.” Gonzalez, 677
F.3d at 394.

*354 The Deadline Extension and federal laws setting
the date for federal elections can, and indeed do, operate
harmoniously. At least 19 other States and the District of
Columbia have post-Election Day absentee ballot receipt
deadlines.10 And many States also accept absentee ballots
mailed by overseas uniformed servicemembers that are
received after Election Day, in accordance with the federal
Uniformed and Overseas Citizens Absentee Voting Act,
52 U.S.C. §§ 20301–20311. So the Voter Plaintiffs’ only
cognizable basis for alleging dilution from the “unlawful”
counting of invalid ballots is state law defining lawful and
unlawful ballot counting practices. Cf. Wise v. Circosta,
978 F.3d 93, 100–01 (4th Cir. 2020) (“Whether ballots are
illegally counted if they are received more than three days
after Election Day depends on an issue of state law from
which we must abstain.” (emphasis in original)), application
for injunctive relief denied sub nom. Moore v. Circosta, No.
20A72, 592 U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 6305036 (Oct. 28, 2020). The Voter Plaintiffs
seem to admit as much, arguing “that counting votes that
are unlawful under the General Assembly's enactments will
unconstitutionally dilute the lawful votes” cast by the Voter
Plaintiffs. Appellants’ Br. 38; see also id. at 31. In other
words, the Voter Plaintiffs say that the Election Day ballot
receipt deadline in Pennsylvania's codified election law
renders the ballots untimely and therefore unlawful to count.
Defendants, for their part, contend that the Pennsylvania
Supreme Court's extension of that deadline under the Free and
Equal Elections Clause of the state constitution renders them
timely, and therefore lawful to count.
This conceptualization of vote dilution—state actors counting
ballots in violation of state election law—is not a concrete
harm under the Equal Protection Clause of the Fourteenth
Amendment. Violation of state election laws by state officials
*355 or other unidentified third parties is not always
amenable to a federal constitutional claim. See Shipley v.
Chicago Bd. of Election Comm'rs, 947 F.3d 1056, 1062 (7th
Cir. 2020) (“A deliberate violation of state election laws
by state election officials does not transgress against the
Constitution.”) (cleaned up); Powell v. Power, 436 F.2d 84,
88 (2d Cir. 1970) (rejecting Equal Protection Clause claim
arising from state's erroneous counting of votes cast by voters
unqualified to participate in closed primary). “It was not
intended by the Fourteenth Amendment ... that all matters
formerly within the exclusive cognizance of the states should
become matters of national concern.” Snowden v. Hughes,
321 U.S. 1, 11, 64 S.Ct. 397, 88 L.Ed. 497 (1944).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1972 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 19 Document 78-2

10

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Contrary to the Voter Plaintiffs’ conceptualization, vote
dilution under the Equal Protection Clause is concerned
with votes being weighed differently. See Rucho v. Common
Cause, ––– U.S. ––––, 139 S. Ct. 2484, 2501, 204 L.Ed.2d
931 (2019) (“ ‘[V]ote dilution’ in the one-person, onevote cases refers to the idea that each vote must carry
equal weight.” (emphasis added)); cf. Baten v. McMaster,
967 F.3d 345, 355 (4th Cir. 2020), as amended (July 27,
2020) (“[N]o vote in the South Carolina system is diluted.
Every qualified person gets one vote and each vote is
counted equally in determining the final tally.”). As explained
below, the Voter Plaintiffs cannot analogize their Equal
Protection claim to gerrymandering cases in which votes were
weighted differently. Instead, Plaintiffs advance an Equal
Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal
treatment. And if dilution of lawfully cast ballots by the
“unlawful” counting of invalidly cast ballots “were a true
equal-protection problem, then it would transform every
violation of state election law (and, actually, every violation
of every law) into a potential federal equal-protection claim
requiring scrutiny of the government's ‘interest’ in failing
to do more to stop the illegal activity.” Trump for Pres. v.
Boockvar, ––– F.Supp.3d at –––– – ––––, 2020 WL 5997680,
at *45–46. That is not how the Equal Protection Clause
works.11
Even if we were to entertain an end-run around the Voter
Plaintiffs’ lack of Elections Clause standing—by viewing the
federal Elections Clause as the source of “unlawfulness” of
Defendants’ vote counting—the alleged vote dilution would
not be a concrete injury. Consider, as we've noted, that the
Voter Plaintiffs take no issue with the content of the Deadline
Extension; they concede that the General Assembly, as other
state legislatures have done, could have enacted exactly the
same Deadline Extension as a valid “time[ ], place[ ], and
manner” regulation consistent with the Elections Clause.
Cf. Snowden, 321 U.S. at 8, 64 S.Ct. 397 (concluding that
alleged “unlawful administration by state officers of a state
statute fair on its face, resulting in its unequal application
to those who are entitled to be treated alike, is not a denial
of equal protection” (emphasis added)); Powell, 436 F.2d
at 88 (“Uneven or erroneous application of an otherwise
valid statute constitutes a denial of equal protection *356
only if it represents ‘intentional or purposeful discrimination.’
” (emphasis added) (quoting Snowden, 321 U.S. at 8, 64
S.Ct. 397)). Reduced to its essence, the Voter Plaintiffs’
claimed vote dilution would rest on their allegation that
federal law required a different state organ to issue the

Deadline Extension. The Voter Plaintiffs have not alleged,
for example, that they were prevented from casting their
votes, Guinn v. United States, 238 U.S. 347, 35 S.Ct. 926,
59 L.Ed. 1340 (1915), nor that their votes were not counted,
United States v. Mosley, 238 U.S. 383, 35 S.Ct. 904, 59
L.Ed. 1355 (1915). Any alleged harm of vote dilution that
turns not on the proportional influence of votes, but solely
on the federal illegality of the Deadline Extension, strikes
us as quintessentially abstract in the election law context
and “divorced from any concrete harm.” Spokeo, 136 S.
Ct. at 1549 (citing Summers v. Earth Island Inst., 555 U.S.
488, 496, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009)). That
the alleged violation here relates to election law and the
U.S. Constitution, rather than the mine-run federal consumer
privacy statute, does not abrogate the requirement that a
concrete harm must flow from the procedural illegality. See,
e.g., Lujan, 504 U.S. at 576, 112 S.Ct. 2130 (“[T]here is
absolutely no basis for making the Article III inquiry turn on
the source of the asserted right.”).
The Voter Plaintiffs thus lack a concrete Equal Protection
Clause injury for their alleged harm of vote dilution
attributable to the Deadline Extension.

ii. No particularized injury from votes counted under the
Deadline Extension or the Presumption of Timeliness.
The opposite of a “particularized” injury is a “generalized
grievance,” where “the impact on plaintiff is plainly
undifferentiated and common to all members of the public.”
Id. at 575, 112 S.Ct. 2130 (cleaned up); see also Lance, 549
U.S. at 439, 127 S.Ct. 1194. The District Court correctly held
that the Voter Plaintiffs’ “dilution” claim is a “paradigmatic
generalized grievance that cannot support standing.” Bognet,
2020 WL 6323121, at *4 (quoting Carson v. Simon, No. 20cv-02030, ––– F.Supp.3d ––––, ––––, 2020 WL 6018957,
at *7 (D. Minn. Oct. 12, 2020), rev'd on other grounds,
No. 20-3139, ––– F.3d ––––, 2020 WL 6335967 (8th Cir.
Oct. 29, 2020)). The Deadline Extension and Presumption
of Timeliness, assuming they operate to allow the illegal
counting of unlawful votes, “dilute” the influence of all voters
in Pennsylvania equally and in an “undifferentiated” manner
and do not dilute a certain group of voters particularly.12
Put another way, “[a] vote cast by fraud or mailed in by
the wrong person through mistake,” or otherwise counted
illegally, “has a mathematical impact on the final tally
and thus on the proportional effect of every vote, but no

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1973 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 19 Document 78-2

11

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

single voter is specifically disadvantaged.” Martel v. Condos,
No. 5:20-cv-00131, ––– F.Supp.3d ––––, ––––, 2020 WL
5755289, at *4 (D. Vt. Sept. 16, 2020). Such an alleged
“dilution” is suffered equally by all voters and is not
“particularized” for standing purposes. *357 The courts
to consider this issue are in accord. See id.; Carson, –––
F.Supp.3d at –––– – ––––, 2020 WL 6018957, at *7–8;
Moore v. Circosta, Nos. 1:20-cv-00911, 1:20-cv-00912, –––
F.Supp.3d ––––, ––––, 2020 WL 6063332, at *14 (M.D.N.C.
Oct. 14, 2020), emergency injunction pending appeal denied
sub nom. Wise v. Circosta, 978 F.3d 93 (4th Cir. 2020),
application for injunctive relief denied sub nom. Moore v.
Circosta, No. 20A72, 592 U.S. ––––, ––– S.Ct. ––––, –––
L.Ed.2d ––––, 2020 WL 6305036 (U.S. Oct. 28, 2020); Paher
v. Cegavske, 457 F. Supp. 3d 919, 926–27 (D. Nev. Apr. 30,
2020).
But the Voter Plaintiffs argue that their purported “vote
dilution” is an injury in fact sufficient to confer standing, and
not a generalized grievance belonging to all voters, because
the Supreme Court has “long recognized that a person's
right to vote is ‘individual and personal in nature.’ ” Gill v.
Whitford, ––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d
313 (2018) (quoting Reynolds v. Sims, 377 U.S. 533, 561, 84
S.Ct. 1362, 12 L.Ed.2d 506 (1964)). “Thus, ‘voters who allege
facts showing disadvantage to themselves as individuals have
standing to sue’ to remedy that disadvantage.” Id. (quoting
Baker v. Carr, 369 U.S. 186, 206, 82 S.Ct. 691, 7 L.Ed.2d 663
(1962)).
The Voter Plaintiffs’ reliance on this language from Baker
and Reynolds is misplaced. In Baker, the plaintiffs challenged
Tennessee's apportionment of seats in its legislature as
violative of the Equal Protection Clause of the Fourteenth
Amendment. 369 U.S. at 193, 82 S.Ct. 691. The Supreme
Court held that the plaintiffs did have standing under Article
III because “[t]he injury which appellants assert is that this
classification disfavors the voters in the counties in which
they reside, placing them in a position of constitutionally
unjustifiable inequality vis-à-vis voters in irrationally favored
counties.” Id. at 207–08, 82 S.Ct. 691.
Although the Baker Court did not decide the merits of the
Equal Protection claim, the Court in a series of cases—
including Gray v. Sanders, 372 U.S. 368, 83 S.Ct. 801,
9 L.Ed.2d 821 (1963), and Reynolds—made clear that the
Equal Protection Clause prohibits a state from “diluti[ng] ...
the weight of the votes of certain ... voters merely because
of where they reside[ ],” just as it prevents a state from

discriminating on the basis of the voter's race or sex.
Reynolds, 377 U.S. at 557, 84 S.Ct. 1362 (emphasis added).
The Voter Plaintiffs consider it significant that the Court in
Reynolds noted—though not in the context of standing—that
“the right to vote” is “individual and personal in nature.”
Id. at 561, 84 S.Ct. 1362 (quoting United States v. Bathgate,
246 U.S. 220, 227, 38 S.Ct. 269, 62 L.Ed. 676 (1918)). The
Court then explained that a voter's right to vote encompasses
both the right to cast that vote and the right to have that vote
counted without “debasement or dilution”:
The right to vote can neither be denied outright, Guinn
v. United States, 238 U.S. 347 [35 S.Ct. 926, 59 L.Ed.
1340 (1915) ], Lane v. Wilson, 307 U.S. 268 [59 S.Ct.
872, 83 L.Ed. 1281 (1939) ], nor destroyed by alteration
of ballots, see United States v. Classic, 313 U.S. 299, 315
[61 S.Ct. 1031, 85 L.Ed. 1368 (1941) ], nor diluted by
ballot-box stuffing, Ex parte Siebold, 100 U.S. 371 [25
L.Ed. 717 (1880) ], United States v. Saylor, 322 U.S. 385
[64 S.Ct. 1101, 88 L.Ed. 1341 (1944) ]. As the Court
stated in Classic, “Obviously included within the right to
choose, secured by the Constitution, is the right of qualified
voters within a state to cast their ballots and have them
counted ....” 313 U.S. at 315 [61 S.Ct. 1031].
...
*358 “The right to vote includes the right to have the
ballot counted. ... It also includes the right to have the
vote counted at full value without dilution or discount. ...
That federally protected right suffers substantial dilution ...
[where a] favored group has full voting strength ... [and]
[t]he groups not in favor have their votes discounted.”
Reynolds, 377 U.S. at 555 & n.29, 84 S.Ct. 1362 (alterations
in last paragraph in original) (quoting South v. Peters, 339
U.S. 276, 279, 70 S.Ct. 641, 94 L.Ed. 834 (1950) (Douglas,
J., dissenting)).
Still, it does not follow from the labeling of the right to vote as
“personal” in Baker and Reynolds that any alleged illegality
affecting voting rights rises to the level of an injury in fact.
After all, the Court has observed that the harms underlying
a racial gerrymandering claim under the Equal Protection
Clause “are personal” in part because they include the harm of
a voter “being personally subjected to a racial classification.”
Ala. Legis. Black Caucus v. Alabama, 575 U.S. 254, 263,
135 S.Ct. 1257, 191 L.Ed.2d 314 (2015) (cleaned up). Yet a
voter “who complains of gerrymandering, but who does not
live in a gerrymandered district, ‘assert[s] only a generalized
grievance against governmental conduct of which he or she

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1974 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 19 Document 78-2

12

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

does not approve.’ ” Gill, 138 S. Ct. at 1930 (quoting United
States v. Hays, 515 U.S. 737, 745, 115 S.Ct. 2431, 132
L.Ed.2d 635 (1995)) (alteration in original). The key inquiry
for standing is whether the alleged violation of the right to
vote arises from an invidious classification—including those
based on “race, sex, economic status, or place of residence
within a State,” Reynolds, 377 U.S. at 561, 84 S.Ct. 1362—
to which the plaintiff is subject and in which “the favored
group has full voting strength and the groups not in favor
have their votes discounted,” id. at 555 n.29, 84 S.Ct. 1362
(cleaned up). In other words, “voters who allege facts showing
disadvantage to themselves” have standing to bring suit to
remedy that disadvantage, Baker, 369 U.S. at 206, 82 S.Ct.
691 (emphasis added), but a disadvantage to the plaintiff
exists only when the plaintiff is part of a group of voters whose
votes will be weighed differently compared to another group.
Here, no Pennsylvania voter's vote will count for less than that
of any other voter as a result of the Deadline Extension and
Presumption of Timeliness.13
This conclusion cannot be avoided by describing one group
of voters as “those ... who lawfully vote in person and
submit their ballots on time” and the other group of
voters as those whose (mail-in) ballots arrive after Election
Day and are counted because of the Deadline Extension
and/or the Presumption of Timeliness. Appellants’ Br. 33
(emphasis in original). Although the former group, under
Plaintiffs’ theory, should make up 100% of the total votes
counted and the latter group 0%, there is *359 simply no
differential weighing of the votes. See Wise, 978 F.3d at
104 (Motz, J., concurring) (“But if the extension went into
effect, plaintiffs’ votes would not count for less relative to
other North Carolina voters. This is the core of an Equal
Protection Clause challenge.” (emphasis in original)). Unlike
the malapportionment or racial gerrymandering cases, a vote
cast by a voter in the so-called “favored” group counts not one
bit more than the same vote cast by the “disfavored” group—
no matter what set of scales one might choose to employ. Cf.
Reynolds, 377 U.S. at 555 n.29, 84 S.Ct. 1362. And, however
one tries to draw a contrast, this division is not based on
a voter's personal characteristics at all, let alone a person's
race, sex, economic status, or place of residence. Two voters
could each have cast a mail-in ballot before Election Day at
the same time, yet perhaps only one of their ballots arrived
by 8:00 P.M. on Election Day, given USPS's mail delivery
process. It is passing strange to assume that one of these voters
would be denied “equal protection of the laws” were both
votes counted. U.S. Const. amend. XIV, § 1.

The Voter Plaintiffs also emphasize language from Reynolds
that “[t]he right to vote can neither be denied outright ... nor
diluted by ballot-box stuffing.” 377 U.S. at 555, 84 S.Ct. 1362
(citing Ex parte Siebold, 100 U.S. 371, 25 L.Ed. 717 (1879);
United States v. Saylor, 322 U.S. 385, 64 S.Ct. 1101, 88 L.Ed.
1341 (1944)). In the first place, casting a vote in accordance
with a procedure approved by a state's highest court—even
assuming that approval violates the Elections Clause—is not
equivalent to “ballot-box stuffing.” The Supreme Court has
only addressed this “false”-tally type of dilution where the
tally was false as a result of a scheme to cast falsified or
fraudulent votes. See Saylor, 322 U.S. at 386, 64 S.Ct. 1101.
We are in uncharted territory when we are asked to declare
that a tally that includes false or fraudulent votes is equivalent
to a tally that includes votes that are or may be unlawful
for non-fraudulent reasons, and so is more aptly described as
“incorrect.” Cf. Gray, 372 U.S. at 386, 83 S.Ct. 801 (Harlan,
J., dissenting) (“[I]t is hard to take seriously the argument
that ‘dilution’ of a vote in consequence of a legislatively
sanctioned electoral system can, without more, be analogized
to an impairment of the political franchise by ballot box
stuffing or other criminal activity.”).
Yet even were this analogy less imperfect, it still would not
follow that every such “false” or incorrect tally is an injury
in fact for purposes of an Equal Protection Clause claim. The
Court's cases that describe ballot-box stuffing as an injury
to the right to vote have arisen from criminal prosecutions
under statutes making it unlawful for anyone to injure the
exercise of another's constitutional right. See, e.g., Ex parte
Siebold, 100 U.S. at 373–74 (application for writ of habeas
corpus); Saylor, 322 U.S. at 385–86, 64 S.Ct. 1101 (criminal
appeal regarding whether statute prohibiting “conspir[ing]
to injure ... any citizen in the free exercise ... of any right
or privilege secured to him by the Constitution” applied to
conspiracy to stuff ballot boxes); Anderson v. United States,
417 U.S. 211, 226, 94 S.Ct. 2253, 41 L.Ed.2d 20 (1974)
(criminal prosecution for conspiracy to stuff ballot boxes
under successor to statute in Saylor). Standing was, of course,
never an issue in those cases because the Government was
enforcing its criminal laws. Here, the Voter Plaintiffs, who
bear the burden to show standing, have presented no instance
in which an individual voter had Article III standing to claim
an equal protection harm to his or her vote from the existence
of an allegedly illegal vote cast by someone else in the same
election.
*360 Indeed, the logical conclusion of the Voter Plaintiffs’
theory is that whenever an elections board counts any ballot

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1975 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 19 Document 78-2

13

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

that deviates in some way from the requirements of a state's
legislatively enacted election code, there is a particularized
injury in fact sufficient to confer Article III standing on every
other voter—provided the remainder of the standing analysis
is satisfied. Allowing standing for such an injury strikes us
as indistinguishable from the proposition that a plaintiff has
Article III standing to assert a general interest in seeing
the “proper application of the Constitution and laws”—a
proposition that the Supreme Court has firmly rejected. Lujan,
504 U.S. at 573–74, 112 S.Ct. 2130. The Voter Plaintiffs thus
lack standing to bring their Equal Protection vote dilution
claim.

b. Arbitrary and Disparate Treatment
The Voter Plaintiffs also lack standing to allege an injury in
the form of “arbitrary and disparate treatment” of a preferred
class of voters because the Voter Plaintiffs have not alleged
a legally cognizable “preferred class” for equal protection
purposes, and because the alleged harm from votes counted
solely due to the Presumption of Timeliness is hypothetical
or conjectural.

i. No legally protected “preferred class.”
The District Court held that the Presumption of Timeliness
creates a “preferred class of voters” who are “able to cast
their ballots after the congressionally established Election
Day” because it “extends the date of the election by multiple
days for a select group of mail-in voters whose ballots will
be presumed to be timely in the absence of a verifiable
postmark.”14 Bognet, 2020 WL 6323121, at *6. The District
Court reasoned, then, that the differential treatment between
groups of voters is by itself an injury for standing purposes.
To the District Court, this supposed “unequal treatment of
voters ... harms the [Voter] Plaintiffs because, as in-person
voters, they must vote by the end of the congressionally
established Election Day in order to have their votes counted.”
Id. The District Court cited no case law in support of its
conclusion that the injury it identified gives rise to Article III
standing.
The District Court's analysis suffers from several flaws. First,
the Deadline Extension and Presumption of Timeliness apply
to all voters, not just a subset of “preferred” voters. It is an
individual voter's choice whether to vote by mail or in person,
and thus whether to become a part of the so-called “preferred

class” that the District Court identified. Whether to join the
“preferred class” of mail-in voters was entirely up to the Voter
Plaintiffs.
Second, it is not clear that the mere creation of so-called
“classes” of voters constitutes an injury in fact. An injury in
fact requires the “invasion of a legally protected interest.”
Lujan, 504 U.S. at 560, 112 S.Ct. 2130. We doubt that
the mere existence of groupings of voters qualifies as an
injury per se. “An equal protection claim will not lie by
‘conflating all persons not injured into a preferred class
receiving better treatment’ than the plaintiff.” Thornton v. City
of St. Helens, 425 F.3d 1158, 1167 (9th Cir. 2005) (quoting
Joyce v. Mavromatis, 783 F.2d 56, 57 (6th Cir. 1986)); see
also, e.g., Batra v. Bd. of Regents of Univ. of Neb., 79 F.3d 717,
721 (8th Cir. 1996) (“[T]he relevant prerequisite is unlawful
discrimination, not whether plaintiff is part of a victimized
class.”). *361 More importantly, the Voter Plaintiffs have
shown no disadvantage to themselves that arises simply by
being separated into groupings. For instance, there is no
argument that it is inappropriate that some voters will vote
in person and others will vote by mail. The existence of
these two groups of voters, without more, simply does not
constitute an injury in fact to in-person voters.
Plaintiffs may believe that injury arises because of a
preference shown for one class over another. But what,
precisely, is the preference of which Plaintiffs complain? In
Bush v. Gore, the Supreme Court held that a State may not
engage in arbitrary and disparate treatment that results in
the valuation of one person's vote over that of another. 531
U.S. at 104–05, 121 S.Ct. 525. Thus, “the right of suffrage
can be denied by a debasement or dilution of the weight of
a citizen's vote just as effectively as by wholly prohibiting
the free exercise of the franchise.” Id. at 105, 121 S.Ct. 525
(quoting Reynolds, 377 U.S. at 555, 84 S.Ct. 1362) (emphasis
added). As we have already discussed, vote dilution is not an
injury in fact here.
What about the risk that some ballots placed in the mail
after Election Day may still be counted? Recall that no
voter—whether in person or by mail—is permitted to vote
after Election Day. Under Plaintiffs’ argument, it might
theoretically be easier for one group of voters—mail-in voters
—to illegally cast late votes than it is for another group of
voters—in-person voters. But even if that is the case, no
group of voters has the right to vote after the deadline.15 We
remember that “a private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1976 Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 19 Document 78-2

14

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Linda R.S. v. Richard D., 410 U.S. 614, 619, 93 S.Ct. 1146, 35
L.Ed.2d 536 (1973) (citations omitted). And “a plaintiff lacks
standing to complain about his inability to commit crimes
because no one has a right to commit a crime.” Citizen Ctr.
v. Gessler, 770 F.3d 900, 910 (10th Cir. 2014). Without a
showing of discrimination or other intentionally unlawful
conduct, or at least some burden on Plaintiffs’ own voting
rights, we discern no basis on which they have standing to
challenge the slim opportunity the Presumption of Timeliness
conceivably affords wrongdoers to violate election law. Cf.
Minn. Voters Alliance v. Ritchie, 720 F.3d 1029, 1033 (8th Cir.
2013) (affirming dismissal of claims “premised on potential
harm in the form of vote dilution caused by insufficient
pre-election verification of [election day registrants’] voting
eligibility and the absence of post-election ballot rescission
procedures”).

ii. Speculative injury from ballots counted under the
Presumption of Timeliness.
Plaintiffs’ theory as to the Presumption of Timeliness focuses
on the potential for some voters to vote after Election Day
and still have their votes counted. This argument reveals that
their alleged injury in fact attributable to the Presumption is
“conjectural or hypothetical” instead of “actual or imminent.”
Spokeo, 136 S. Ct. at 1547–48 (quoting Lujan, 504 U.S. at
560, 112 S.Ct. 2130). The Supreme Court has emphasized
that a threatened injury must be “certainly impending” and
not merely “possible” for it to constitute an injury in fact.
Clapper, 568 U.S. at 409, 133 S.Ct. 1138 (emphasis in
original) (quoting *362 Whitmore v. Ark., 495 U.S. 149, 158,
110 S.Ct. 1717, 109 L.Ed.2d 135 (1990)). When determining
Article III standing, our Court accepts allegations based
on well-pleaded facts; but we do not credit bald assertions
that rest on mere supposition. Finkelman v. NFL, 810 F.3d
187, 201–02 (3d Cir. 2016). The Supreme Court has also
emphasized its “reluctance to endorse standing theories that
rest on speculation about the decisions of independent actors.”
Clapper, 568 U.S. at 414, 133 S.Ct. 1138. A standing
theory becomes even more speculative when it requires that
independent actors make decisions to act unlawfully. See City
of L.A. v. Lyons, 461 U.S. 95, 105–06 & 106 n.7, 103 S.Ct.
1660, 75 L.Ed.2d 675 (1983) (rejecting Article III standing
to seek injunction where party invoking federal jurisdiction
would have to establish that he would unlawfully resist arrest
or police officers would violate department orders in future).

Here, the Presumption of Timeliness could inflict injury on
the Voter Plaintiffs only if: (1) another voter violates the
law by casting an absentee ballot after Election Day; (2)
the illegally cast ballot does not bear a legible postmark,
which is against USPS policy;16 (3) that same ballot still
arrives within three days of Election Day, which is faster
than USPS anticipates mail delivery will occur;17 (4) the
ballot lacks sufficient indicia of its untimeliness to overcome
the Presumption of Timeliness; and (5) that same ballot is
ultimately counted. See Donald J. Trump for Pres., Inc. v.
Way, No. 20-cv-10753, 2020 WL 6204477, at *7 (D.N.J.
Oct. 22, 2020) (laying out similar “unlikely chain of events”
required for vote dilution harm from postmark rule under
New Jersey election law); see also Reilly v. Ceridian Corp.,
664 F.3d 38, 43 (3d Cir. 2011) (holding purported injury
in fact was too conjectural where “we cannot now describe
how Appellants will be injured in this case without beginning
our explanation with the word ‘if’ ”). This parade of
horribles “may never come to pass,” Trump for Pres. v.
Boockvar, 2020 WL 5997680, at *33, and we are especially
reluctant to endorse such a speculative theory of injury
given Pennsylvania's “own mechanisms for deterring and
prosecuting voter fraud,” Donald J. Trump for Pres., Inc. v.
Cegavske, No. 20-1445, ––– F.Supp.3d ––––, ––––, 2020 WL
5626974, at *6 (D. Nev. Sept. 18, 2020).18
To date, the Secretary has reported that at least 655 ballots
without a legible postmark have been collected within the
Deadline Extension period.19 But it is mere speculation to say
that any one of those ballots was cast after Election Day. We
are reluctant to conclude that an independent *363 actor—
here, one of 655 voters—decided to mail his or her ballot after
Election Day contrary to law. The Voter Plaintiffs have not
provided any empirical evidence on the frequency of voter
fraud or the speed of mail delivery that would establish a
statistical likelihood or even the plausibility that any of the
655 ballots was cast after Election Day. Any injury to the
Voter Plaintiffs attributable to the Presumption of Timeliness
is merely “possible,” not “actual or imminent,” and thus
cannot constitute an injury in fact.
B. Purcell
Even were we to conclude that Plaintiffs have standing, we
could not say that the District Court abused its discretion in
concluding on this record that the Supreme Court's electionlaw jurisprudence counseled against injunctive relief. Unique
and important equitable considerations, including voters’
reliance on the rules in place when they made their plans

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1977 Case 2:20-cv-01771-PP Filed 12/09/20 Page 15 of 19 Document 78-2

15

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

to vote and chose how to cast their ballots, support that
disposition. Plaintiffs’ requested relief would have upended
this status quo, which is generally disfavored under the “voter
confusion” and election confidence rationales of Purcell v.
Gonzalez, 549 U.S. 1, 4–5, 127 S.Ct. 5, 166 L.Ed.2d 1 (2006).
One can assume for the sake of argument that aspects of
the now-prevailing regime in Pennsylvania are unlawful as
alleged and still recognize that, given the timing of Plaintiffs’
request for injunctive relief, the electoral calendar was such
that following it “one last time” was the better of the choices
available. Perez, 138 S. Ct. at 2324 (“And if a [redistricting]
plan is found to be unlawful very close to the election date, the
only reasonable option may be to use the plan one last time.”).

lower federal courts should ordinarily not alter the election
rules on the eve of an *364 election.” Id. at 1207 (citing
Purcell, 549 U.S. at 1, 127 S.Ct. 5). And just over two weeks
ago, the Court denied an application to vacate a stay of a
district court order that made similar changes to Wisconsin's
election rules six weeks before Election Day. Democratic
Nat'l Comm. v. Wis. State Legislature, No. 20A66, 592 U.S.
––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020 WL 6275871
(Oct. 26, 2020) (denying application to vacate stay). Justice
Kavanaugh explained that the injunction was improper for
the “independent reason[ ]” that “the District Court changed
Wisconsin's election rules too close to the election, in
contravention of this Court's precedents.” Id. at ––––, 2020
WL 6275871 at *3 (Kavanaugh, J., concurring). Purcell and

Here, less than two weeks before Election Day, Plaintiffs
asked the District Court to enjoin a deadline established by
the Pennsylvania Supreme Court on September 17, a deadline
that may have informed voters’ decisions about whether and
when to request mail-in ballots as well as when and how
they cast or intended to cast them. In such circumstances,
the District Court was well within its discretion to give heed
to Supreme Court decisions instructing that “federal courts
should ordinarily not alter the election rules on the eve of
an election.” Republican Nat'l Comm. v. Democratic Nat'l
Comm., ––– U.S. ––––, 140 S. Ct. 1205, 1207, 206 L.Ed.2d
452 (2020) (per curiam) (citing Purcell, 549 U.S. at 1, 127
S.Ct. 5).

a string20 of Supreme Court election-law decisions in 2020
“recognize a basic tenet of election law: When an election is
close at hand, the rules of the road should be clear and settled.”
Id.

In Purcell, an appeal from a federal court order enjoining
the State of Arizona from enforcing its voter identification
law, the Supreme Court acknowledged that “[c]onfidence
in the integrity of our electoral processes is essential to
the functioning of our participatory democracy.” 549 U.S.
at 4, 127 S.Ct. 5. In other words, “[c]ourt orders affecting
elections, especially conflicting orders, can themselves result
in voter confusion and consequent incentive to remain away
from the polls. As an election draws closer, that risk will
increase.” Id. at 4–5, 127 S.Ct. 5. Mindful of “the necessity for
clear guidance to the State of Arizona” and “the imminence
of the election,” the Court vacated the injunction. Id. at 5, 127
S.Ct. 5.
The principle announced in Purcell has very recently been
reiterated. First, in Republican National Committee, the
Supreme Court stayed on the eve of the April 7 Wisconsin
primary a district court order that altered the State's voting
rules by extending certain deadlines applicable to absentee
ballots. 140 S. Ct. at 1206. The Court noted that it was
adhering to Purcell and had “repeatedly emphasized that

The prevailing state election rule in Pennsylvania permitted
voters to mail ballots up through 8:00 P.M. on Election Day
so long as their ballots arrived by 5:00 P.M. on November
6. Whether that rule was wisely or properly put in place is
not before us now. What matters for our purposes today is
that Plaintiffs’ challenge to it was not filed until sufficiently
close to the election to raise a reasonable concern in the
District Court that more harm than good would come from
an injunction changing the rule. In sum, the District Court's
justifiable reliance on Purcell constitutes an “alternative and
independent reason[ ]” for concluding that an “injunction was
unwarranted” here. Wis. State Legislature, ––– S.Ct. at ––––,
2020 WL 6275871, at *3 (Kavanaugh, J., concurring).

IV. Conclusion
We do not decide today whether the Deadline Extension
or the Presumption of Timeliness are proper exercises of
the Commonwealth of Pennsylvania's lawmaking authority,
delegated by the U.S. Constitution, to regulate federal
elections. Nor do we evaluate the policy wisdom of those
two features of the Pennsylvania Supreme Court's ruling.
We hold only that when voters cast their ballots under a
state's facially lawful election rule and in accordance with
instructions from the state's election officials, private citizens
lack Article III standing to enjoin the counting of those ballots
on the grounds that the source of the rule was the wrong
state organ or that doing so dilutes their votes or constitutes
differential treatment of voters in violation of the Equal

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1978 Case 2:20-cv-01771-PP Filed 12/09/20 Page 16 of 19 Document 78-2

16

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Protection Clause. Further, and independent of our holding
on standing, we hold that the District Court did not err in
denying Plaintiffs’ motion for injunctive relief out of concern
for the settled expectations of voters and election officials.
We will affirm the District Court's denial of Plaintiffs’ *365
emergency motion for a TRO or preliminary injunction.

All Citations
980 F.3d 336

Footnotes

1
2
3
4
5

6

7

8
9

10

Second Letter from Phoc on (Apr 1784), reprinted in 3 The Papers of A exander Ham ton, 1782–1786, 530–58 (Haro d
C. Syrett ed., 1962).
Throughout th s op n on, we refer to absentee vot ng and ma - n vot ng nterchangeab y.
The Free and Equa E ect ons C ause of the Pennsy van a Const tut on prov des: “E ect ons sha be free and equa ; and no
power, c v or m tary, sha at any t me nterfere to prevent the free exerc se of the r ght of suffrage.” Pa. Const. art. 1, § 5.
Because we have rece ved comprehens ve br ef ng, and g ven the we ghty pub c nterest n a prompt ru ng on the matter
before us, we have e ected to forgo ora argument.
Bognet seeks to represent Pennsy van a n Congress, but even f he somehow had a re at onsh p to state awmak ng
processes, he wou d ack persona stand ng to sue for redress of the a eged “ nst tut ona njury (the d m nut on of
eg s at ve power), wh ch necessar y damage[d] a Members of [the eg s ature] ... equa y.” Raines v. Byrd, 521 U.S. 811,
821, 117 S.Ct. 2312, 138 L.Ed.2d 849 (1997) (p a nt ffs were s x out of 535 members of Congress); see also Corman, 287
F. Supp. 3d at 568–69 (conc ud ng that “two of 253 members of the Pennsy van a Genera Assemb y” acked stand ng to
sue under E ect ons C ause for a eged “depr vat on of the r eg s at ve author ty to apport on congress ona d str cts’ ”);
accord Va. House of Delegates v. Bethune-Hill, ––– U.S. ––––, 139 S. Ct. 1945, 1953, 204 L.Ed.2d 305 (2019).
Our conc us on departs from the recent dec s on of an E ghth C rcu t pane wh ch, over a d ssent, conc uded that
cand dates for the pos t on of pres dent a e ector had stand ng under Bond to cha enge a M nnesota state-court consent
decree that effect ve y extended the rece pt dead ne for ma ed ba ots. See Carson v. Simon, No. 20-3139, ––– F.3d
––––, ––––, 2020 WL 6335967, at *5 (8th C r. Oct. 29, 2020). The Carson court appears to have c ted anguage from
Bond w thout cons der ng the context—spec f ca y, the Tenth Amendment and the reserved po ce powers— n wh ch the
U.S. Supreme Court emp oyed that anguage. There s no precedent for expand ng Bond beyond th s context, and the
Carson court c ted none.
The a eged njury spec f c to Bognet does not mp cate the Qua f cat ons C ause or exc us on from Congress, Powell
v. McCormack, 395 U.S. 486, 550, 89 S.Ct. 1944, 23 L.Ed.2d 491 (1969), nor the stand ng of members of Congress
to br ng act ons a eg ng separat on-of-powers v o at ons. Moore v. U.S. House of Reps., 733 F.2d 946, 959 (D.C. C r.
1984) (Sca a, J., concurr ng).
On y the Voter P a nt ffs br ng the Equa Protect on count n the Comp a nt; Bognet d d not jo n that count.
We exc ude the Presumpt on of T me ness from our concreteness ana ys s. P a nt ffs a ege that the federa statutes
prov d ng for a un form e ect on day, 3 U.S.C. § 1 and 2 U.S.C. § 7, conf ct w th, and thus d sp ace, any state aw that
wou d author ze vot ng after E ect on Day. They c a m that the Presumpt on perm ts, theoret ca y at east, some voters
whose ba ots ack a eg b e postmark to vote after E ect on Day, n v o at on of these federa statutes. So un ke the
Dead ne Extens on, P a nt ffs contend that the Genera Assemb y cou d not enact the Presumpt on cons stent w th the
Const tut on. Th s conceptua zat on of njury s thus more proper y character zed as “concrete” than s the purported
Dead ne Extens on njury attr butab e to voters hav ng the r t me y voted ba ots rece ved and counted after E ect on Day.
That sa d, we express no op n on about whether the Voter P a nt ffs have, n fact, a eged such a concrete njury for
stand ng purposes.
See AS § 15.20.081(e) & (h) (A aska – 10 days after E ect on Day f postmarked on or before E ect on Day); West s Ann.
Ca . E ec. Code § 3020(b) (Ca forn a – three days after E ect on Day f postmarked on or before E ect on Day); DC ST §
1-1001.05(a)(10A) (D str ct of Co umb a – seven days after the e ect on f postmarked on or before E ect on Day); 10 ILCS
5/19-8, 5/18A-15 (I no s – 14 days after the e ect on f postmarked on or before E ect on Day); K.S.A. 25-1132 (Kansas
– three days after the e ect on f postmarked before the c ose of po s on E ect on Day); MD Code, E ec. Law, § 9-505
(Mary and – the second Fr day after E ect on Day f postmarked on or before E ect on Day); M ss. Code Ann. § 23-15-637
(M ss ss pp – f ve bus ness days after E ect on Day f postmarked on or before E ect on Day); NV Rev Stat § 293.317
(Nevada – by 5:00 P.M. on the seventh day after E ect on Day f postmarked by E ect on Day, and ba ots w th unc ear

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1979 Case 2:20-cv-01771-PP Filed 12/09/20 Page 17 of 19 Document 78-2

17

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

11

12

13

14
15
16
17
18

19

20

postmarks must be rece ved by 5:00 P.M. on the th rd day after E ect on Day); N.J.S.A. 19:63-22 (New Jersey – 48
hours after po s c ose f postmarked on or before E ect on Day); McK nney s E ec. Law § 8-412 (New York – seven days
after the e ect on for ma ed ba ots postmarked on E ect on Day); N.C. Gen. Stat. § 163-231(b)(2) and Wise v. Circosta,
978 F.3d 93, 96 (4th C r. 2020) (North Caro na – recogn z ng extens on from three to n ne days after the e ect on the
dead ne for ma ba ots postmarked on or before E ect on Day); Texas E ec. Code § 86.007 (the day after the e ect on
by 5:00 P.M. f postmarked on or before E ect on Day); Va. Code 24.2-709 (V rg n a – by noon on the th rd day after
the e ect on f postmarked on or before E ect on Day); West s RCWA 29A.40.091 (Wash ngton – no rece pt dead ne for
ba ots postmarked on or before E ect on Day); W. Va. Code, §§ 3-3-5, 3-5-17 (West V rg n a – f ve days after the e ect on
f postmarked on or before E ect on Day); see also Iowa Code § 53.17(2) (by noon the Monday fo ow ng the e ect on f
postmarked by the day before E ect on Day); NDCC 16.1-07-09 (North Dakota – before the canvass f postmarked the
day before E ect on Day); R.C. § 3509.05 (Oh o – 10 days after the e ect on f postmarked by the day before E ect on
Day); Utah Code Ann. § 20A-3a-204 (seven to 14 days after the e ect on f postmarked the day before the e ect on).
Bush v. Gore does not requ re us to perform an Equa Protect on C ause ana ys s of Pennsy van a e ect on aw as
nterpreted by the Pennsy van a Supreme Court. See 531 U.S. at 109, 121 S.Ct. 525 (“Our cons derat on s m ted to the
present c rcumstances ....”); id. at 139–40, 121 S.Ct. 525 (G nsburg, J., d ssent ng) (d scuss ng “[r]are[ ]” occas ons when
Supreme Court rejected state supreme court s nterpretat on of state aw, one of wh ch was n 1813 and others occurred
dur ng C v R ghts Movement—and none dec ded federa equa protect on ssues).
In the r comp a nt, the Voter P a nt ffs a eged that they are a “res dents of Somerset County, a county where voters are
request ng absentee ba ots at a rate far less than the state average” and thus, somehow, the Voter P a nt ffs’ votes “w
be d uted to a greater degree than other voters.” Comp . ¶ 71 (emphas s n or g na ). P a nt ffs cont nue to advance th s
argument on appea n support of stand ng, and t add t ona y suffers from be ng a conjectura or hypothet ca njury under
the framework d scussed infra Sect on III.A.2.b. . It s pure y hypothet ca that count es where a greater percentage of
voters request absentee ba ots w more frequent y have those ba ots rece ved after E ect on Day.
P a nt ffs a so re y on FEC v. Akins, 524 U.S. 11, 118 S.Ct. 1777, 141 L.Ed.2d 10 (1998), for the propos t on that a
w despread njury—such as a mass tort njury or an njury “where arge numbers of voters suffer nterference w th vot ng
r ghts conferred by aw”—does not become a “genera zed gr evance” just because many share t. Id. at 24–25, 118 S.Ct.
1777. That s true as far as t goes. But the Voter P a nt ffs have not a eged an njury ke that at ssue n Akins. There,
the p a nt ffs’ c a med njury was the r nab ty to obta n nformat on they a eged was requ red to be d sc osed under the
Federa E ect on Campa gn Act. Id. at 21, 118 S.Ct. 1777. The p a nt ffs a eged a statutory r ght to obta n nformat on
and that the same nformat on was be ng w thhe d. Here, the Voter P a nt ffs’ a eged njury s to the r r ght under the
Equa Protect on C ause not to have the r votes “d uted,” but the Voter P a nt ffs have not a eged that the r votes are
ess nf uent a than any other vote.
The D str ct Court d d not f nd that the Dead ne Extens on created such a preferred c ass.
Moreover, we cannot over ook that the ma - n voters potent a y suffer a disadvantage re at ve to the n-person voters.
Whereas n-person ba ots that are t me y cast w count, t me y cast ma - n ba ots may not count because, g ven ma
de very rates, they may not be rece ved by 5:00 P.M. on November 6.
See Defendant-Appe ee s Br. 30 (c t ng 39 C.F.R. § 211.2(a)(2); Posta Operat ons Manua at 443.3).
See Pa. Democratic Party, 238 A.3d at 364 (not ng “current two to f ve day de very expectat on of the USPS”).
Indeed, the conduct requ red of a voter to effectuate such a scheme may be pun shab e as a cr me under Pennsy van a
statutes that cr m na ze forg ng or “fa se y mak[ ng] the off c a endorsement on any ba ot,” 25 Pa. Stat. & Cons. Stat. §
3517 (pun shab e by up to two years’ mpr sonment); “w fu y d sobey[ ng] any awfu nstruct on or order of any county
board of e ect ons,” id. § 3501 (pun shab e by up to one year s mpr sonment); or vot ng tw ce n one e ect on, id. § 3535
(pun shab e by up to seven years’ mpr sonment).
As of the morn ng of November 12, Secretary Boockvar est mates that 655 of the 9383 ba ots rece ved between 8:00
P.M. on E ect on Day and 5:00 P.M. on November 6 ack a eg b e postmark. See Dkt. No. 59. That est mate of 655 ba ots
does not nc ude tota s from f ve of Pennsy van a s 67 count es: Leh gh, Northumber and, T oga, Warren, and Wayne. Id.
The 9383 ba ots rece ved, however, account for a of Pennsy van a s count es. Id.
See, e.g., Andino v. Middleton, No. 20A55, 592 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020 WL 5887393,
at *1 (Oct. 5, 2020) (Kavanaugh, J., concurr ng) (“By enjo n ng South Caro na s w tness requ rement short y before the
e ect on, the D str ct Court def ed [the Purcell] pr nc p e and th s Court s precedents.” (c tat ons om tted)); Merrill v. People
First of Ala., No. 19A1063, 591 U.S. ––––, ––– S.Ct. ––––, ––––, ––– L.Ed.2d ––––, 2020 WL 3604049 (Mem.), at *1
(Ju y 2, 2020); Republican Nat'l Comm., 140 S. Ct. at 1207; see also Democratic Nat'l Comm. v. Bostelmann, 977 F.3d
639, 641 (7th C r. 2020) (per cur am) (ho d ng that njunct on ssued s x weeks before e ect on v o ated Purcell); New Ga.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1980 Case 2:20-cv-01771-PP Filed 12/09/20 Page 18 of 19 Document 78-2

18

Ex. 2

Bognet v. Secretary Commonwealth of Pennsylvania, 980 F.3d 336 (2020)

Project v. Raffensperger, 976 F.3d 1278, 1283 (11th C r. Oct. 2, 2020) (“[W]e are not on the eve of the e ect on—we
are n the m dd e of t, w th absentee ba ots a ready pr nted and ma ed. An njunct on here wou d thus v o ate Purcell’s
we -known caut on aga nst federa courts mandat ng new e ect on ru es—espec a y at the ast m nute.” (c t ng Purcell,
549 U.S. at 4–5, 127 S.Ct. 5)).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1981 Case 2:20-cv-01771-PP Filed 12/09/20 Page 19 of 19 Document 78-2

19

Ex. 2

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

2020 WL 5997680
Only the Westlaw citation is currently available.
United States District Court, W.D. Pennsylvania.

DONALD J. TRUMP FOR
PRESIDENT, INC., et al., Plaintiffs
v.
Kathy BOOCKVAR, in her capacity
as Secretary of the Commonwealth
of Pennsylvania, et al., Defendants.
No. 2:20-cv-966
|
Signed 10/10/2020
Synopsis
Background: President's reelection campaign, Republican
National Committee, and Republican congressional
candidates and electors filed suit against state and county
election officials alleging federal and state constitutional
violations stemming from Pennsylvania's implementation
of mail-in voting plan for upcoming general election and
its poll watcher residency requirement. State Democratic
Party, advocacy organizations, and their members intervened.
Parties filed cross-motions for summary judgment.

Holdings: The District Court, J. Nicholas Ranjan, J., held
that:
plaintiffs' claims were ripe for adjudication;
any injury that plaintiffs would suffer was too speculative to
establish Article III standing;
use of unmanned drop boxes for mail-in ballots by some
counties, but not others, did not violate Equal Protection
Clause;
use of unmanned drop boxes for mail-in ballots did not violate
substantive due process principles;
state law did not impose signature comparison requirement
for mail-in and absentee ballots;

state law did not impose signature comparison requirement
for applications for mail-in and absentee ballots;
fact that some county boards of elections intended to verify
signatures on mail-in and absentee ballots and applications,
while others did not, did not violate Equal Protection Clause;
fact that state did not require signature comparison for mailin and absentee ballots, but did for in-person ballots, did not
violate Equal Protection Clause; and
county residency requirement on being poll watcher did not
violate plaintiffs' constitutional rights.
Defendants' motion granted.
Attorneys and Law Firms
Ronald L. Hicks, Jr., Carolyn Batz McGee, Jeremy A. Mercer,
Russell D. Giancola, Devin A. Winklosky, Porter Wright
Morris & Arthur LLP, Pittsburgh, PA, Justin R. Clark, Pro Hac
Vice, Matthew Earl Morgan, Pro Hac Vice, Elections LLC,
Washington, DC, for Plaintiffs.
Daniel T. Donovan, Pro Hac Vice, Caroline Darmody, Pro
Hac Vice, Kristen Leigh Bokhan, Michael Glick, Pro Hac
Vice, Susan Marie Davies, Pro Hac Vice, Kirkland & Ellis
LLP, Washington, DC, Howard G. Hopkirk, Karen Mascio
Romano, Keli Marie Neary, Pro Hac Vice, Nicole Boland, Pro
Hac Vice, Stephen Moniak, Pennsylvania Office of Attorney
General, Kathleen M. Kotula, Kenneth L. Joel, M. Abbegael
Giunta, Governor's Office of General Counsel, Timothy
Gates, Pennsylvania Department of State Office of Chief
Counsel, Harrisburg, PA, Daniel T. Brier, Donna A. Walsh,
John B. Dempsey, Nicholas F. Kravitz, Pro Hac Vice, Myers,
Brier & Kelly, LLP, Scranton, PA, Jaywin Singh Malhi, Pro
Hac Vice, Madelyn Morris, Sara S. Tatum, Kirkland & Ellis
LLP, New York, NY, for Defendant Kathy Boockvar.
Molly R. Mudd, Pro Hac Vice, County of Adams, Gettysburg,
PA, for Defendant Adams County Board of Elections.
Andrew F. Szefi, Allan J. Opsitnick, George M. Janocsko,
Allegheny County Law Department, Pittsburgh, PA, for
Defendant Allegheny County Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst, Calland, Clements and Zomnir,
P.C., Pittsburgh, PA, Elizabeth A. Dupuis, Babst Calland,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1982 Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 63 Document 78-3

1

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

State College, PA, for Defendants Armstrong County Board
of Elections, Bedford County Board of Elections, Centre
County Board of Elections, Columbia County Board of
Elections, Fayette County Board of Elections, Indiana County
Board of Elections, Lackawanna County Board of Elections,
Lebanon County Board of Elections, Montour County Board
of Elections, Northumberland County Board of Elections,
Venango County Board of Elections.
Nathan A. Morgan, Beaver, PA, for Defendant Beaver County
Board of Elections.
Christine D. Steere, Deasey, Mahoney & Valentini, Ltd.,
Media, PA, for Defendant Berks County Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst Calland Clements and Zomnir, PC,
Pittsburgh, PA, Elizabeth A. Dupuis, Babst Calland, State
College, PA, Nathan W. Karn, Evey Black Attorneys LLC,
Hollidaysburg, PA, for Defendant Blair County Board of
Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Pro Hac Vice,
Peter V. Keays, Robert Wiygul, Pro Hac Vice, Hangley
Aronchick Segal Pudlin & Schiller, Philadelphia, PA, Joseph
J. Khan, County of Bucks, Doylestown, PA, for Defendant
Bucks County Board of Elections.
William Gleason Barbin, Cambria County Solicitor's Office,
Ebensburg, PA, for Defendant Cambria County Board of
Elections.
Gerard Joseph Geiger, Pro Hac Vice, Newman Williams,
Stroudsburg, PA, for Defendant Carbon County Board of
Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Pro Hac Vice,
Robert Wiygul, Pro Hac Vice, Hangley Aronchick Segal
Pudlin & Schiller, Philadelphia, PA, for Defendant Chester
County Board of Elections.
Christopher P. Gabriel, Carfardi Ferguson Wyrick Weis +
Gabriel, Sewickley, PA, for Defendant Clarion County Board
of Elections.
Frank A. Blum, III, Jefferson Hills, PA, for Defendant
Clearfield County Board of Elections.
Keith A. Button, Shafer Law Firm, Meadville, PA, for
Defendant Crawford County Board of Elections.

Keith O. Brenneman, Law Office of Keith O. Brenneman,
P.C., Mechanicsburg, PA, for Defendant Cumberland County
Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst Calland Clements and Zomnir, PC,
Pittsburgh, PA, Elizabeth A. Dupuis, Babst Calland, State
College, PA, Joseph A. Curcillo, III, Dauphin County,
Harrisburg, PA, for Defendant Dauphin County Board of
Elections.
Edward D. Rogers, Pro Hac Vice, Elizabeth Wingfield, Pro
Hac Vice, Kahlil Williams, Pro Hac Vice, David S. Fryman,
Ballard, Spahr, Andrews & Ingersoll, Terence Grugan, Pro
Hac Vice, Ballard Spahr, Philadelphia, PA, for Defendant
Delaware County Board of Elections.
Thomas S. Talarico, Talarico & Niebauer, Erie, PA, for
Defendant Erie County Board of Elections.
Andrew W. Norfleet, Frank J. Lavery, Jr., Stephen B.
Edwards, Lavery Law, Harrisburg, PA, for Defendants
Franklin County Board of Elections, Perry County Board of
Elections.
Robert Eugene Grimm, Robert Eugene Grimm Attorney,
Smithfield, PA, for Defendant Greene County Board of
Elections.
Peter M. McManamon, Pro Hac Vice, Gill, McManamon
& Ghaner, Huntingdon, PA, Steven B. Silverman, Molly E.
Meacham, Sean R. Keegan, Andrew Degory, Babst Calland
Clements and Zomnir, PC, Pittsburgh, PA, Elizabeth A.
Dupuis, Babst Calland, State College, PA, for Defendant
Huntingdon County Board of Elections.
C.J. Zwick, Zwick & Zwick LLP, DuBois, PA, Gregory D.
Sobol, Brookville, PA, for Defendant Jefferson County Board
of Elections.
Donald Zagurskie, Pro Hac Vice, Johnston & Zagurskie, PC,
Mifflin, PA, for Defendant Juniata County Board of Elections.
Christina L. Hausner, Pro Hac Vice, County of Lancaster,
Lancaster, PA, for Defendant Lancaster County Board of
Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Andrew Degory, Babst Calland Clements and Zomnir, PC,
Pittsburgh, PA, Thomas W. Leslie, New Castle, PA, Elizabeth

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1983 Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 63 Document 78-3

2

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

A. Dupuis, Babst Calland, State College, PA, for Defendant
Lawrence County Board of Elections.
Thomas M. Caffrey, Pro Hac Vice, PO BOX A, Coplay,
PA, Sarah Mae Murray, Pro Hac Vice, County of Lehigh,
Allentown, PA, for Defendant Lehigh County Board of
Elections.

Thomas R. Shaffer, Glassmire & Shaffer Law Offices,
Coudersport, PA, for Defendant Potter County Board of
Elections.
Michael P. Barbera, Barbera, Melvin, Svonavec & Sperlazza
LLP, Somerset, PA, for Defendant Somerset County Board of
Elections.

Lawrence J. Moran, Jr., Matthew J. Carmody, Joyce,
Carmody & Moran, P.C., Regina M. Blewitt, Joyce Carmody
Moran, Pittston, PA, for Defendant Luzerne County Board of
Elections.

Kenneth R. Levitzky, Kenneth R. Levitzky, Esquire,
Dushore, PA, for Defendants Sullivan County Board of
Elections, Wyoming County Board of Elections.

Joseph D. Smith, McCormick Law Firm, Williamsport, PA,
for Defendant Lycoming County Board of Elections.

Robert Gawlas, Robert Schaub, Rosenn Jenkins & Greenwald
LLP, Wilkes-Barre, PA, for Defendant Susquehanna County
Board of Elections.

Anthony V. Clarke, The Clarke Firm, Bradford, PA, for
Defendant Mckean County Board of Elections.
Steven B. Silverman, Molly E. Meacham, Sean R. Keegan,
Babst, Calland, Clements and Zomnir, P.C., Pittsburgh, PA,
William J. Madden, Solicitor, Mercer County, Sharon, PA,
Elizabeth A. Dupuis, Babst Calland, State College, PA, for
Defendant Mercer County Board of Elections.
Gerard Joseph Geiger, Newman Williams, Stroudsburg, PA,
for Defendants Monroe County Board of Elections, Pike
County Board of Elections, Schuylkill County Board of
Elections, Snyder County Board of Elections, Wayne County
Board of Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Pro Hac Vice,
Robert Wiygul, Pro Hac Vice, Hangley Aronchick Segal
Pudlin & Schiller, Philadelphia, PA, Maureen Calder, Pro Hac
Vice, Montgomery County Solicitor's Office, Norristown, PA,
for Defendant Montgomery County Board of Elections.
Brian Taylor, Pro Hac Vice, Richard E. Santee, Pro Hac Vice,
County of Northampton, Easton, PA, Timothy P. Brennan, Pro
Hac Vice, County of Northampton, PA, PA, for Defendant
Northampton County Board of Elections.
Mark A. Aronchick, Christina Matthias, Pro Hac Vice, John
B. Hill, Pro Hac Vice, Michele D. Hangley, Robert Wiygul,
Pro Hac Vice, Hangley Aronchick Segal Pudlin & Schiller,
Zachary Strassburger, City of Philadelphia Law Department,
Philadelphia, PA, for Defendant Philadelphia County Board
of Elections.

Christopher P. Gabriel, Carfardi Ferguson Wyrick Weis +
Gabriel, Sewickley, PA, Raymond E. Ginn, Jr., Pro Hac Vice,
Ginn & Vickery, P.C., Wellsboro, PA, for Defendant Tioga
County Board of Elections.
Steven B. Silverman, Sean R. Keegan, Babst, Calland,
Clements and Zomnir, P.C., Pittsburgh, PA, Allen P. Page,
McNerney, Page, Vanderlin & Hall, Williamsport, PA, for
Defendant Union County Board of Elections.
Nathaniel Justus Schmidt, Schmidt Law Firm, Warren, PA,
for Defendant Warren County Board of Elections.
Robert J. Grimm, Swartz Campbell, Ryan Michael Joyce,
Swartz Campbell, LLC, Pittsburgh, PA, for Defendant
Washington County Board of Elections.
David A. Regoli, New Kensington, PA, for Defendant
Westmoreland County Board of Elections.
Michelle Pokrifka, Pro Hac Vice, York County Solicitor's
Office, York, PA, Steven B. Silverman, Molly E. Meacham,
Sean R. Keegan, Andrew Degory, Babst Calland Clements
and Zomnir, PC, Pittsburgh, PA, Elizabeth A. Dupuis, Babst
Calland, State College, PA, for Defendant York County Board
of Elections.
Adriel I. Cepeda Derieux, Pro Hac Vice, Dale E. Ho, Pro
Hac Vice, Sophia Lin Lakin, Pro Hac Vice, American Civil
Liberties Union Foundation, Christopher R. Noyes, Pro Hac
Vice, Eleanor Davis, Pro Hac Vice, Jared Vasconcellos
Grubow, Pro Hac Vice, Lori A. Martin, Wilmer Cutler
Pickering Hale and Dorr LLP, New York, NY, Benjamin
David Geffen, Mary McKenzie, Public Interest Law Center,
Philadelphia, PA, David P. Yin, Pro Hac Vice, Sarah E.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1984 Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 63 Document 78-3

3

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Brannon, Pro Hac Vice, American Civil Liberties Union
Foundation, John Michael Powers, Pro Hac Vice, Lawyers'
Committee for Civil Rights Under Law, Washington, DC,
Jason H. Liss, Pro Hac Vice, Boston, MA, Samantha Picans,
Pro Hac Vice, Wilmer Cutler Pickering Hale and Dorr LLP,
Denver, CO, Witold J. Walczak, Aclf of PA, Pittsburgh, PA,
for Defendant NAACP Pennsylvania State Conference.
Adriel I. Cepeda Derieux, Pro Hac Vice, Dale E. Ho, Pro
Hac Vice, Sophia Lin Lakin, Pro Hac Vice, American Civil
Liberties Union Foundation, Christopher R. Noyes, Pro Hac
Vice, Eleanor Davis, Jared Vasconcellos Grubow, Pro Hac
Vice, Lori A. Martin, Wilmer Cutler Pickering Hale and
Dorr LLP, New York, NY, Benjamin David Geffen, Mary
McKenzie, Public Interest Law Center, Philadelphia, PA,
David P. Yin, Pro Hac Vice, Sarah E. Brannon, Pro Hac Vice,
American Civil Liberties Union Foundation, John Michael
Powers, Pro Hac Vice, Lawyers' Committee for Civil Rights
Under Law, Washington, DC, Jason H. Liss, Pro Hac Vice,
Boston, MA, Samantha Picans, Pro Hac Vice, Wilmer Cutler
Pickering Hale and Dorr LLP, Denver, CO, Witold J. Walczak,
Aclf of PA, Pittsburgh, PA, for Defendant Common Cause
Pennsylvania.
Adriel I. Cepeda Derieux, Dale E. Ho, Sophia Lin Lakin,
American Civil Liberties Union Foundation, Christopher R.
Noyes, Eleanor Davis, Jared Vasconcellos Grubow, Lori A.
Martin, Wilmer Cutler Pickering Hale and Dorr LLP, New
York, NY, Benjamin David Geffen, Mary McKenzie, Public
Interest Law Center, Philadelphia, PA, David P. Yin, Pro
Hac Vice, Sarah E. Brannon, American Civil Liberties Union
Foundation, John Michael Powers, Pro Hac Vice, Lawyers'
Committee for Civil Rights Under Law, Washington, DC,
Jason H. Liss, Boston, MA, Samantha Picans, Wilmer Cutler
Pickering Hale and Dorr LLP, Denver, CO, Witold J. Walczak,
Aclf of PA, Pittsburgh, PA, for Defendants League of Women
Voters of Pennsylvania, Patricia Demarco, Danielle Graham
Robinson, Kathleen Wise.

OPINION
J. Nicholas Ranjan, United States District Judge
*1 Plaintiffs in this case are President Trump's reelection
campaign, the Republican National Committee, and several
other Republican congressional candidates and electors.
They originally filed this suit, alleging federal and state
constitutional violations stemming from Pennsylvania's

implementation of a mail-in voting plan for the upcoming
general election.
Since then, the Pennsylvania Supreme Court issued a decision
involving similar claims, which substantially narrowed the
focus of this case. And Secretary of the Commonwealth,
Kathy Boockvar, issued additional election “guidance,”
which further narrowed certain of the claims.
Therefore, as this case presently stands, only three claims
remain. First, whether the use of so-called “drop boxes”1 for
mail-in ballots is unconstitutional, given the lack of guidance
or mandates that those drop boxes have security guards to man
them. Second, whether the Secretary's guidance as to mailin ballots—specifically, her guidance that county election
boards should not reject mail-in ballots where the voter's
signature does not match the one on file—is unconstitutional.
Third, whether Pennsylvania's restriction that poll watchers
be residents in the county for which they are assigned, as
applied to the facts of this case, is unconstitutional.
In order to present these claims to the Court on a
complete record, the parties engaged in extensive fact and
expert discovery, and have filed cross-motions for summary
judgment. No party has raised a genuine dispute of material
fact that would require a trial, and the Court has found none.
As such, the parties’ cross-motions for summary judgment are
ready for disposition.
After a careful review of the parties’ submissions and the
extensive evidentiary record, the Court will enter judgment in
favor of Defendants on all of Plaintiffs’ federal-constitutional
claims, decline to exercise supplemental jurisdiction over the
state-constitutional claims, and dismiss this case. This is so
for two main reasons.
First, the Court concludes that Plaintiffs lack Article III
standing to pursue their claims. Standing, of course, is a
necessary requirement to cross the threshold into federal
court. Federal courts adjudicate cases and controversies,
where a plaintiff's injury is concrete and particularized. Here,
however, Plaintiffs have not presented a concrete injury to
warrant federal-court review. All of Plaintiffs’ remaining
claims have the same theory of injury—one of “vote dilution.”
Plaintiffs fear that absent implementation of the security
measures that they seek (guards by drop boxes, signature
comparison of mail-in ballots, and poll watchers), there is a
risk of voter fraud by other voters. If another person engages

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1985 Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 63 Document 78-3

4

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

in voter fraud, Plaintiffs assert that their own lawfully cast
vote will, by comparison, count for less, or be diluted.
*2 The problem with this theory of harm is that it is
speculative, and thus Plaintiffs’ injury is not “concrete”—
a critical element to have standing in federal court. While
Plaintiffs may not need to prove actual voter fraud, they must
at least prove that such fraud is “certainly impending.” They
haven't met that burden. At most, they have pieced together a
sequence of uncertain assumptions: (1) they assume potential
fraudsters may attempt to commit election fraud through the
use of drop boxes or forged ballots, or due to a potential
shortage of poll watchers; (2) they assume the numerous
election-security measures used by county election officials
may not work; and (3) they assume their own security
measures may have prevented that fraud.
All of these assumptions could end up being true, and these
events could theoretically happen. But so could many things.
The relevant question here is: are they “certainly impending”?
At least based on the evidence presented, the answer to that is
“no.” And that is the legal standard that Plaintiffs must meet.
As the Supreme Court has held, this Court cannot “endorse
standing theories that rest on speculation about the decisions
of independent actors.” See Clapper v. Amnesty Int'l USA, 568
U.S. 398, 414, 133 S.Ct. 1138, 185 L.Ed.2d 264 (2013).
Second, even if Plaintiffs had standing, their claims fail on
the merits. Plaintiffs essentially ask this Court to secondguess the judgment of the Pennsylvania General Assembly
and election officials, who are experts in creating and
implementing an election plan. Perhaps Plaintiffs are right
that guards should be placed near drop boxes, signatureanalysis experts should examine every mail-in ballot, poll
watchers should be able to man any poll regardless of
location, and other security improvements should be made.
But the job of an unelected federal judge isn't to suggest
election improvements, especially when those improvements
contradict the reasoned judgment of democratically elected
officials. See Andino v. Middleton, ––– U.S. ––––, ––– S.Ct.
––––, ––––, ––– L.Ed.2d ––––, 2020 WL 5887393, at *1 (Oct.
5, 2020) (Kavanaugh, J. concurring) (state legislatures should
not be subject to “second-guessing by an unelected federal
judiciary,” which is “not accountable to the people”) (cleaned
up).
Put differently, “[f]ederal judges can have a lot of power—
especially when issuing injunctions. And sometimes we may
even have a good idea or two. But the Constitution sets out our

sphere of decision-making, and that sphere does not extend
to second-guessing and interfering with a State's reasonable,
nondiscriminatory election rules.” New Georgia Project v.
Raffensperger, ––– F.3d ––––, ––––, 2020 WL 5877588, at
*4 (11th Cir. Oct. 2, 2020).
As discussed below, the Court finds that the election
regulations put in place by the General Assembly and
implemented by Defendants do not significantly burden any
right to vote. They are rational. They further important state
interests. They align with the Commonwealth's elaborate
election-security measures. They do not run afoul of the
United States Constitution. They will not otherwise be
second-guessed by this Court.

BACKGROUND
I. Procedural Background
A. Plaintiffs’ original claims.
On June 29, 2020, Plaintiffs filed their original complaint
in this case against Defendants, who are the Secretary of
the Commonwealth and the 67 county boards of elections.
[ECF 4]. With their lawsuit, Plaintiffs challenged a number
of Pennsylvania's procedures with respect to mail-in voting
—in particular, the use of drop boxes and the counting of
mail-in ballots that contained certain procedural defects. See
[id.]. Shortly after filing their original complaint, Plaintiffs
moved for expedited discovery and an expedited declaratoryjudgment hearing. [ECF 6]. Defendants opposed the motion.
The Court partially granted the motion, scheduled a speedy
hearing, and ordered expedited discovery before that hearing.
[ECF 123; ECF 124].
*3 After Plaintiffs filed the original complaint, many nonparties sought to intervene in the action, including several
organizations.2 The Court granted all intervention motions.
[ECF 309].
Defendants and Intervenors moved to dismiss the original
complaint. In response, Plaintiffs filed an amended complaint.
[ECF 234]. The amended complaint maintained the gist of
the original, but added two new counts and made a variety
of other drafting changes. See [ECF 242]. Defendants and
Intervenors moved to dismiss the first amended complaint,
too, primarily asking the Court to abstain and stay the case.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1986 Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 63 Document 78-3

5

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Plaintiffs’ first amended complaint asserted nine separate
counts, but they could be sorted into three overarching
categories.

1. Claims alleging vote dilution due to unlawful ballot
collection and counting procedures.
The first category covered claims related to allegedly
unlawful procedures implemented by some Defendants for
the collection and counting of mail-in and absentee ballots.
Those included claims related to (1) Defendants’ uneven use
of drop boxes and other satellite ballot-collection sites, (2)
procedures for verifying the qualifications of voters applying
in person for mail-in or absentee ballots, and (3) rules for
counting non-compliant ballots (such as ballots submitted
without a secrecy envelope, without an elector declaration, or
that contained stray marks on the envelope).
In Count I, Plaintiffs alleged violations of the Elections
Clause and the related Presidential Electors Clause of the
U.S. Constitution. [ECF 234, ¶¶ 193-205]. Plaintiffs asserted
that, under these provisions, only the state legislature may set
the time, place, and manner of congressional elections and
determine how the state chooses electors for the presidency.
[Id. at ¶ 196].
In support of this claim, Plaintiffs alleged that Secretary
Boockvar's guidance concerning the use of mail-in ballot
drop boxes, whether county boards of elections must
independently verify mail-in ballot applications, and the
counting of non-compliant mail-in ballots, was an executive
overreach—in that the Secretary's guidance allegedly violated
certain provisions of the Election Code enacted by the
Pennsylvania General Assembly. [Id. at ¶ 201]. Plaintiffs also
claimed that the Secretary's “unlawful guidance” increased
the risk of fraudulent or unlawful voting and infringed on
the right to vote, which, they said, amounted to additional
violations of the 1st and 14th Amendments to the U.S.
Constitution. [Id. at ¶¶ 202-03].
In Count II, Plaintiffs alleged a violation of the EqualProtection Clause under the 14th Amendment. [Id. at ¶¶
206-15]. Plaintiffs asserted that the implementation of the
foregoing (i.e., mail-in ballot drop boxes, the verification of
mail-in ballot applications, and the counting of non-compliant
ballots) was different in different counties, thereby treating
voters across the state in an unequal fashion. [Id. at ¶¶
211-13].

*4 In Count III, Plaintiffs asserted a violation of the
Pennsylvania State Constitution. [Id. at ¶¶ 216-22]. Plaintiffs
alleged that the same actions and conduct that comprised
Counts I and II also violated similar provisions of the
Pennsylvania Constitution. [Id. at ¶ 220].
Finally, in Counts VI and VII, Plaintiffs alleged that
Defendants violated provisions of the federal and state
constitutions by disregarding the Election Code's notice and
selection requirements applicable to “polling places.” [Id. at
¶¶ 237-52]. Plaintiffs alleged that drop boxes are “polling
places,” and thus subject to certain criteria for site selection
and the requirement that county election boards provide 20
days’ public notice. [Id. at ¶¶ 239-42]. Plaintiffs asserted that
Defendants’ failure to provide this notice or select appropriate
“polling places” in the primary election, if repeated in the
general election, would create the risk of voter fraud and vote
dilution. [Id. at ¶¶ 243-246].

2. Poll-watcher claims.
The second category of claims in the first amended complaint
consisted of challenges to the constitutionality of ElectionCode provisions related to poll watchers.
In Count IV, Plaintiffs alleged violations of the 1st and 14th
Amendments. These claims had both a facial and an asapplied component. [ECF 234, ¶ 230 (“On its face and as
applied to the 2020 General Election ...”) ].
First, Plaintiffs alleged that 25 P.S. § 2687 was facially
unconstitutional because it “arbitrarily and unreasonably”
limits poll watchers to serving only in their county of
residence and to monitoring only in-person voting at the
polling place on election day. [Id. at ¶ 226]. Second, Plaintiffs
alleged that the same provision was unconstitutional as
applied in the context of Pennsylvania's new vote-by-mail
system, because these poll-watcher restrictions, combined
with insecure voting procedures, create unacceptable risks of
fraud and vote dilution. [Id. at ¶ 228]. Plaintiffs contended
that these limitations make it “functionally impracticable”
for candidates to ensure that they have poll watchers
present where ballots are deposited and collected, given the
widespread use of remote drop boxes and other satellite
collection sites. [Id.].

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1987 Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 63 Document 78-3

6

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Count V was the same as Count IV, but alleged that the
same poll-watching restrictions violated the Pennsylvania
Constitution, too. [Id. at ¶ 234].

3. In-person voting claims.
The third category of claims consisted of challenges to the
procedures for allowing electors to vote in person after
requesting a mail-in ballot.
That is, in Counts VIII and IX, Plaintiffs asserted that the
Election Code permits an elector that has requested a mail-in
ballot to still vote in person so long as he remits his spoiled
ballot. [ECF 234, ¶¶ 253-267]. Plaintiffs asserted that during
the primary, some counties allowed such electors to vote in
person, while others did not, and they fear the same will
happen in the general election. [Id. at ¶¶ 255, 259]. Plaintiffs
also asserted that some counties allowed electors who had
voted by mail to vote in person, in violation of the Election
Code. [Id. at ¶¶ 257-58]. Plaintiffs alleged that this conduct
also violates the federal and state constitutional provisions
concerning the right to vote and equal protection. [Id. at ¶¶
261, 265].
B. The Court's decision to abstain.
*5 Upon consideration of Defendants’ and Intervenors’
motions to dismiss the first amended complaint, on August
23, 2020, the Court issued an opinion abstaining under R.R.
Comm'n of Tex. v. Pullman Co., 312 U.S. 496, 61 S.Ct. 643,
85 L.Ed. 971 (1941) and temporarily staying the case. [ECF
409, 410].
In doing so, the Court determined that the three requisite
prongs for Pullman abstention were met, and that the
discretionary considerations weighed in favor of abstention.
[ECF 409, p. 3 (“[Under Pullman, federal courts abstain] if
(1) doing so requires interpretation of ‘unsettled questions
of state law’; (2) permitting resolution of the unsettled statelaw questions by state courts would ‘obviate the need for,
or substantially narrow the scope of adjudication of the
constitutional claims’; and (3) an ‘erroneous construction of
state law would be disruptive of important state policies[.]’
” (citing Chez Sez III Corp. v. Township of Union, 945
F.2d 628, 631 (3d Cir. 1991))); id. at p. 30 (explaining
that after the three prongs of Pullman abstention are met,
the court must “make a discretionary determination of
whether abstention is appropriate given the particular facts

of this case,” which requires weighing “such factors as the
availability of an adequate state remedy, the length of time the
litigation has been pending, and the impact of delay on the
litigants.” (cleaned up)) ].
The Court found that abstaining under Pullman was
appropriate because of several unresolved ambiguities in
Pennsylvania's Election Code. Specifically, the Court found
that there were significant ambiguities as to whether the
Election Code (1) permitted delivery of ballots to locations
other than the county election board's headquarters, such
as drop boxes, (2) permitted counties to count ballots
that were not placed within the “secrecy envelope” (i.e.,
“naked ballots”), (3) considered drop boxes and other ballotcollection sites as “polling places,” as defined in the Election
Code, and (4) required counties to automatically verify ballot
applications for mail-in ballots (where the person applied
for the ballot in person), even if there was no “bona fide
objection” to the application. [ECF 409, pp. 17-23].
The Court explained that each of these ambiguities, if
settled, would significantly narrow—or even resolve—some
of Plaintiffs’ claims. As the Court explained, for example,
if a state court interpreted the Election Code to disallow
drop boxes, Plaintiffs would obtain their requested relief (i.e.,
no drop boxes); alternatively, if drop boxes were authorized
by the Election Code, then Plaintiffs’ allegations that drop
boxes were illegal would be eliminated, which would, in turn,
significantly affect the constitutional analysis of Plaintiffs’
claims. [Id. at pp. 25-28]. The same held true for “naked
ballots,” the breadth of coverage of “polling places,” and the
requisite verification for personal ballot applications.
The Court then explained that it was appropriate for it to
abstain until a state court could interpret the ambiguous
state law. [Id. at pp. 28-30]. The Court concluded that if it
interpreted the ambiguous state law, there was a sufficient
chance that a state court could disagree with the interpretation,
which would render this Court's interpretation not only
advisory, but disruptive to state policies. The Court noted that
especially in the election context, states have considerable
discretion to implement their own policies without federal
intervention. Accordingly, because these were questions of
uninterpreted state law that were sufficiently ambiguous,
federalism and comity demanded that a state court, not this
Court, be the first interpreter.
*6 Finally, the Court explained that, despite the imminence
of the election, abstention was still proper. [Id. at pp.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1988 Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 63 Document 78-3

7

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

30-33]. The Court noted that state-court litigation was already
pending that would resolve some of the statutory ambiguities
at issue. [Id. at p. 31]. Further, the Court highlighted three
courses Plaintiffs could immediately take to resolve the
statutory ambiguities: intervene in the pending state-court
litigation; file their own state-court case; or appeal this
Court's abstention decision to the Third Circuit, and then
seek certification of the unsettled state-law issues in the
Pennsylvania Supreme Court. [Id. at pp. 31-33].
Additionally, the Court explained that it would stay the entire
case, despite several of Plaintiffs’ claims not being subject
to Pullman abstention as they were not based on ambiguous
state law. [Id. at pp. 34-37]. That's because, in its discretion,
the Court determined it would be more efficient for this case
to progress as a single proceeding, rather than in piecemeal
fashion. [Id.]. However, the Court allowed any party to move
to lift the stay as to the few claims not subject to Pullman
abstention, if no state-court decision had been issued by
October 5, 2020. [Id.].
On August 28, 2020, five days after the Court abstained,
Plaintiffs moved to modify the Court's stay, and moved for
a preliminary injunction. [ECF 414]. Plaintiffs requested,
among other things, that the Court order Defendants to
segregate, and not pre-canvass or canvass, all ballots that
were returned in drop boxes, lacked a secrecy envelope, or
were delivered by a third party. [Id.]. Plaintiffs also requested
that the Court lift the stay by September 14, 2020, instead of
October 5, 2020. [Id.].
The Court denied Plaintiffs’ motion for preliminary injunctive
relief, finding that Plaintiffs failed to show they would
be irreparably harmed. [ECF 444; ECF 445]. The Court
also declined to move up the date when the stay would
be lifted. [Id.]. The Court noted that, at the request of
Secretary Boockvar, the Pennsylvania Supreme Court had
already exercised its extraordinary jurisdiction to consider
five discrete issues and clarify Pennsylvania law in time for
the general election. [Id. at p. 1]. Since that case appeared
to be on track, the Court denied Plaintiffs’ motion without
prejudice, and the Court's abstention opinion and order
remained in effect.
C. The Pennsylvania Supreme Court's decision.
On September 17, 2020, the Pennsylvania Supreme Court
issued its decision in Pennsylvania Democratic Party v.
Boockvar, ––– Pa. ––––, ––– A.3d ––––, 2020 WL 5554644

(Sept. 17, 2020). The court clarified three issues of state
election law that are directly relevant to this case.

1. Counties are permitted under the Election Code to
establish alternate ballot-collection sites beyond just their
main county office locations.
The Pennsylvania Supreme Court first considered whether the
Election Code allowed a Pennsylvania voter to deliver his
or her mail-in ballot in person to a location other than the
established office address of the county's board of election.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *8. The
court further considered the means by which county boards
of election could accept hand-delivered mail-in ballots. Id.
Consistent with this Court's abstention opinion, the court
found that “the parties’ competing interpretations of the
Election Code on [these questions] are reasonable, rendering
the Code ambiguous” on these questions. Id. After applying
traditional principles of statutory interpretation, the court held
that “the Election Code should be interpreted to allow county
boards of election to accept hand-delivered mail-in ballots
at locations other than their office addresses including dropboxes.” Id. at.––––, 2020 WL 5554644, at *9. The court
reached this conclusion due to “the clear legislative intent
underlying Act 77 ... to provide electors with options to vote
outside of traditional polling places.” Id.
*7 The respondents in that case further argued that this
interpretation would cause county boards of election to
“employ myriad systems to accept hand-delivered mail-in
ballots,” which would “be unconstitutionally disparate from
one another in so much as some systems will offer more legal
protections to voters than others will provide” and violate the
Equal-Protection Clause Id. The court rejected this argument.
It found that “the exact manner in which each county board
of election will accept these votes is entirely unknown at this
point; thus, we have no metric by which to measure whether
any one system offers more legal protection than another,
making an equal protection analysis impossible at this time.”
Id.

2. Ballots lacking inner secrecy envelopes should not be
counted.
The court next considered whether the boards of elections
“must ‘clothe and count naked ballots,’ i.e., place ballots

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1989 Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 63 Document 78-3

8

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

that were returned without the secrecy envelope into a
proper envelope and count them, rather than invalidate them.”
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *21. The
court concluded that they should not.
The court held that “the Legislature intended for the secrecy
envelope provision [in the Election Code] to be mandatory.”
Id. at ––––, 2020 WL 5554644, at *24. In other words,
the relevant provisions “make clear the General Assembly's
intention that, during the collection and canvassing processes,
when the outer envelope in which the ballot arrived is
unsealed and the sealed ballot removed, it should not be
readily apparent who the elector is, with what party he or
she affiliates, or for whom the elector has voted.” Id. The
secrecy envelope “properly unmarked and sealed ensures that
result,” and “[w]hatever the wisdom of the requirement, the
command that the mail-in elector utilize the secrecy envelope
and leave it unblemished by identifying information is neither
ambiguous nor unreasonable.” Id.
As a result, the court ultimately concluded, “a mail-ballot that
is not enclosed in the statutorily-mandated secrecy envelope
must be disqualified.” Id. at ––––, 2020 WL 5554644, at *26

3. Pennsylvania's county-residency requirement for poll
watchers is constitutional.
The final relevant issue the court considered was whether
the poll-watcher residency requirement found in 25 P.S.
§ 2687(b) violates state or federal constitutional rights.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *26.
Relying on Republican Party of Pennsylvania v. Cortés, 218
F. Supp. 3d 396 (E.D. Pa. 2016), the court concluded that
the poll-watcher residency provision “impose[d] no burden
on one's constitutional right to vote and, accordingly, requires
only a showing that a rational basis exists to be upheld.” Id.
at ––––, 2020 WL 5554644, at *30. The court found rationalbasis review was appropriate for three reasons.
First, “there is no individual constitutional right to serve as
a poll watcher; rather, the right to do so is conferred by
statute.” Id. (citation omitted). Second, “poll watching is not
incidental to the right of free association and, thus, has no
distinct First Amendment protection.” Id. (cleaned up). Third,
“poll watching does not implicate core political speech.” Id.
(citation omitted).

The court went on to find that there was a “clear rational
basis for the county poll watcher residency requirement[.]” Id.
That is, given “Pennsylvania has envisioned a county-based
scheme for managing elections within the Commonwealth,”
it is “reasonable that the Legislature would require poll
watchers, who serve within the various counties of the state,
to be residents of the counties in which they serve.” Id.
In upholding the constitutionality of the “county poll watcher
residency requirement,” the court rejected the claim that “poll
watchers are vital to protect against voter fraud and that
because of the distribution of voters throughout Pennsylvania,
the residency requirement makes it difficult to identify poll
watchers in all precincts.” Id. The court concluded that
the claims of “heightened election fraud involving mailin voting” were “unsubstantiated” and “specifically belied
by the Act 35 report issued by [Secretary Boockvar] on
August 1, 2020.” Id. Moreover, the court held that the
“speculative claim that it is ‘difficult’ for both parties to
fill poll watcher positions in every precinct, even if true, is
insufficient to transform the Commonwealth's uniform and
reasonable regulation requiring that poll watchers be residents
of the counties they serve into a non-rational policy choice.”
Id.
*8 Based on the foregoing, the court declared “that the pollwatcher residency requirement does not violate the state or
federal constitutions.” Id. at ––––, 2020 WL 5554644, at *31.
D. Plaintiffs’ notice of remaining claims.
Following the Pennsylvania Supreme Court's decision, this
Court lifted the stay it had imposed pursuant to the Pullman
abstention doctrine and ordered the parties to identify the
remaining viable claims and defenses in the case. [ECF 447].
In their notice, Plaintiffs took the position that nearly all
their claims remained viable, with a few discrete exceptions.
Plaintiffs conceded that their “federal and state constitutional
claims of voter dilution solely on the basis that drop boxes
and other collection sites are not statutorily authorized by the
Pennsylvania Election Code [were] no longer viable.” [ECF
448, p. 4]. They also stated that their “facial challenge to
the county residency requirement under 25 P.S. § 2687 is no
longer a viable claim.” [Id. at p. 10]. Plaintiffs also moved
for leave to amend their complaint a second time to add new
allegations and a new claim relating to Secretary Boockvar's
recent signature-comparison guidance. [ECF 451].

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1990 Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 63 Document 78-3

9

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Defendants and Intervenors, for their part, suggested that
Plaintiffs’ claims had been substantially narrowed, if not
outright mooted, by the Pennsylvania Supreme Court's
decision, and reminded the Court that their arguments for
dismissal remained outstanding.
E. The Court's September 23, 2020, memorandum
orders.
In response to the notices filed by the parties and Plaintiffs’
motion for leave to amend the first amended complaint, the
Court issued an order granting Plaintiffs’ motion, narrowing
the scope of the lawsuit, and establishing the procedure for
resolving the remaining claims. [ECF 459].
As to Plaintiffs’ proposed amendment to their complaint, the
Court found that the new claim and allegations were relatively
narrow, and thus amendment wouldn't prejudice Defendants
and Intervenors. [Id. at pp. 3-4]. As a result, the Court granted
the motion. [Id. at p. 4].
The Court, however, did inform the parties that it would
“continue to abstain under Pullman as to Plaintiffs’ claim
pertaining to the notice of drop box locations and, more
generally, whether the “polling place” requirements under
the Election Code apply to drop-box locations.” [Id. at p.
5]. This was so because those claims involve still-unsettled
issues of state law. The Court explained that the “fact that
the Pennsylvania Supreme Court did not address this issue
in its recent decision is immaterial” because the “propriety
of Pullman abstention does not depend on the existence of
parallel state-court proceedings.” [Id. (citing Stoe v. Flaherty,
436 F.3d 209, 213 (3d Cir. 2006)) ]. Moreover, Plaintiffs had
several other avenues to pursue prompt interpretation of state
law after this Court abstained. [Id. at p. 6].
The Court also informed the parties, for similar reasons,
that it would continue to abstain with respect to Plaintiffs’
claims regarding Secretary Boockvar's guidance that personal
applications for mail-in ballots shall be accepted absent a
“bona fide objection.” [ECF 460].
The Court found that “no Article III ‘case or controversy’
remain[ed] with respect to the claims on which the
Pennsylvania Supreme Court effectively ruled in Plaintiffs’
favor on state-law grounds (e.g., illegality of third-party ballot
delivery; excluding ‘naked ballots’ submitted without innersecrecy envelopes).” [ECF 459, p. 6]. Because there was
“no reason to believe Defendants plan to violate what they
themselves now agree the law requires,” the Court held that

Plaintiffs’ claims were premature and speculative. [Id. at p. 7].
The Court therefore dismissed those claims as falling outside
of its Article III power to adjudicate. [Id. (citations omitted) ].
*9 To resolve the remaining claims, the Court directed
the parties to file cross-motions for summary judgment
presenting all arguments for dismissal or judgment under
Federal Rule of Civil Procedure 56. [Id. at pp. 8-10]. Before
briefing on those motions, the Court authorized additional
expedited discovery. [Id. at pp. 4-5]. The parties completed
discovery and timely filed their motions; they identified no
material disputes of fact; and therefore, the motions are now
fully briefed and ready for disposition.
F. The claims now at issue.
Based on the Pennsylvania Supreme Court's prior ruling,
this Court's prior decisions, Plaintiffs’ nine-count Second
Amended Complaint, and recent guidance issued by Secretary
Boockvar, the claims remaining in this case are narrow and
substantially different than those asserted at the outset of the
case.
Drop Boxes (Counts I-III). Plaintiffs still advance a claim
that drop boxes are unconstitutional, but in a different way.
Now that the Pennsylvania Supreme Court has expressly
held that drop boxes are authorized under the Election Code,
Plaintiffs now assert that the use of “unmanned” drop boxes
is unconstitutional under the federal and state constitutions,
for reasons discussed in more detail below.
Signature Comparison (Counts I-III). Plaintiffs’ newly
added claim relates to signature comparison. Secretary
Boockvar's September 2020 guidance informs the county
boards that they are not to engage in a signature analysis of
mail-in ballots and applications, and they must count those
ballots, even if the signature on the ballot does not match the
voter's signature on file. Plaintiffs assert that this guidance is
unconstitutional under the federal and state constitutions.
Poll Watching (Counts IV, V). The Pennsylvania Supreme
Court already declared that Pennsylvania's county-residency
requirement for poll watchers is facially constitutional.
Plaintiffs now only assert that the requirement, as applied, is
unconstitutional under the federal and state constitutions.
The counts that remain in the Second Amended Complaint,
but which are not at issue, are the counts related to where
poll watchers can be located. That is implicated mostly by
Counts VI and VII, and by certain allegations in Counts IV

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1991 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 63 Document 78-3

10

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

and V. The Court continues to abstain from reaching that
issue. Plaintiffs have filed a separate state lawsuit that would
appear to address many of those issues, in any event. [ECF
549-22; ECF 573-1]. Counts VIII and IX concern challenges
related to voters that have requested mail-in ballots, but that
instead seek to vote in person. The Secretary issued recent
guidance, effectively mooting those claims, and, based on
Plaintiffs’ positions taken in the course of this litigation, the
Court deems Plaintiffs to have withdrawn Counts VIII and IX.
[ECF 509, p. 15 n.4 (“[I]n the September 28 guidance memo,
the Secretary corrected [her] earlier guidance to conform
to the Election Code and states that any mail-in voter who
spoils his/her ballot and the accompanying envelopes and
signs a declaration that they did not vote by mail-in ballot
will be allowed to vote a regular ballot. Therefore, Plaintiffs
agree to withdraw this claim from those that still are being
pursued.”) ].
II. Factual Background
A. Pennsylvania's Election Code, and the adoption of
Act 77.
1. The county-based election system.
Pennsylvania's Election Code, first enacted in 1937,
established a county-based system for administering
elections. See 25 P.S. § 2641(a) (“There shall be a
county board of elections in and for each county of this
Commonwealth, which shall have jurisdiction over the
conduct of primaries and elections in such county, in
accordance with the provisions of [the Election Code].”).
The Election Code vests county boards of elections with
discretion to conduct elections and implement procedures
intended to ensure the honesty, efficiency, and uniformity of
Pennsylvania's elections. Id. §§ 2641(a), 2642(g).

2. The adoption of Act 77.
*10 On October 31, 2019, the Pennsylvania General
Assembly passed “Act 77,” a bipartisan reform of
Pennsylvania's Election Code. See [ECF 461, ¶¶ 91]; 2019 Pa.
Legis. Serv. Act 2019-77 (S.B. 421).
Among other things, by passing Act 77, Pennsylvania joined
34 other states in authorizing “no excuse” mail-in voting
by all qualified electors. See [ECF 461, ¶¶ 92]; 25 P.S. §§

3150.11-3150.17; [ECF 549-11, p. 5 “The largest number
of states (34), practice no-excuse mail-in voting, allowing
any persons to vote by mail regardless of whether they have
a reason or whether they will be out of their jurisdiction
on Election Day.”) ]. Previously, a voter could only cast an
“absentee” ballot if certain criteria were met, such as that the
voter would be away from the election district on election day.
See 1998 Pa. Legis. Serv. Act. 1998-18 (H.B. 1760), § 14.
Like the previous absentee voting system, Pennsylvania's
mail-in voting system requires voters to “opt-in” by
requesting a ballot from either the Secretary or the voter's
county board of elections. See 25 P.S. §§ 3146.2(a),
3150.12(a). When requesting a ballot, the voter must provide,
among other things, his or her name, date of birth, voting
district, length of time residing in the voting district, and
party choice for primary elections. See 25 P.S. §§ 3146.2(b),
3150.12(b). A voter must also provide proof of identification;
namely, either a driver's license number or, in the case of
a voter who does not have a driver's license, the last four
digits of the voter's Social Security number, or, in the case
of a voter who has neither a driver's license nor a Social
Security number, another form of approved identification. 25
P.S. § 2602(z.5)(3). In this respect, Pennsylvania differs from
states that automatically mail each registered voter a ballot—
a practice known as “universal mail-in voting.” [ECF 549-11,
p. 6] (“[N]ine states conduct universal vote-by-mail elections
in which the state (or a local entity, such [as] a county or
municipality) mails all registered voters a ballot before each
election without voters’ [sic] having to request them.”).

3. The COVID-19 pandemic.
Since early 2020, the United States, and Pennsylvania,
have been engulfed in a viral pandemic of unprecedented
scope and scale. [ECF 549-8, ¶ 31]. In that time,
COVID-19 has spread to every corner of the globe,
including Pennsylvania, and jeopardized the safety and
health of many people. [Id. at ¶¶ 31, 38-39, 54-55, 66].
As of this date, more than 200,000 Americans have died,
including more than 8,000 Pennsylvanians. See Covid in the
U.S.: Latest Map and Case Count, The New York Times,
available at https://www.nytimes.com/interactive/2020/us/
coronavirus-us-cases html (last visited Oct. 10, 2020);
COVID-19 Data for Pennsylvania, Pennsylvania Department
of Health, available at https://www health.pa.gov/topics/
disease/coronavirus/Pages/Cases.aspx (last visited Oct. 10,
2020).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1992 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 63 Document 78-3

11

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

There have been many safety precautions that Pennsylvanians
have been either required or urged to take, such as limiting
participation in large gatherings, maintaining social distance,
and wearing face coverings. [ECF 549-8, ¶¶ 58, 63-65]. The
threat of COVID-19 is likely to persist through the November
general election. [Id. at ¶¶ 53-56, 66-68].
B. Facts relevant to drop boxes.
*11 Pennsylvania's county-based election system vests
county boards of elections with “jurisdiction over the conduct
of primaries and elections in such county, in accordance with
the provisions” of the Election Code. 25 P.S. § 2641(a).
The Election Code further empowers the county boards to
“make and issue such rules, regulations and instructions, not
inconsistent with law, as they may deem necessary for the
guidance of voting machine custodians, elections officers and
electors.” Id. at § 2642(f). The counties are also charged with
the responsibility to “purchase, preserve, store and maintain
primary and election equipment of all kinds, including voting
booths, ballot boxes and voting machines.” Id. at § 2642(c).
As noted above, in Pennsylvania Democratic Party v.
Boockvar, the Pennsylvania Supreme Court interpreted the
Election Code, which allows for mail-in and absentee ballots
to be returned to the “county board of election,” to “permit[ ]
county boards of election to accept hand-delivered mail-in
ballots at locations other than their office addresses including
drop-boxes.” ––– A.3d at ––––, 2020 WL 5554644, at *10.
Thus, it is now settled that the Election Code permits (but
does not require) counties to authorize drop boxes and other
satellite-collection locations for mailed ballots. 25 P.S. §
3150.16(a). Pennsylvania is not alone in this regard—as many
as 34 other states and the District of Columbia authorize
the use of drop boxes or satellite ballot collection sites to
one degree or another. [ECF 549-11, p. 8, fig. 4]. Indeed,
Secretary Boockvar stated that as many as 16% of voters
nationwide had cast their ballots using drop boxes in the 2016
general election, including the majority of voters in Colorado
(75%) and Washington (56.9%). [ECF 547, p. 18 (citing ECF
549-16) ].

Since the passage of Act 77, Secretary Boockvar has
issued several guidance documents to the counties regarding
the counties’ implementation of mail-in voting, including
guidance with respect to the use of drop boxes. [ECF 504-21;
504-22; 504-23; 504-24; 504-25; 571-1, Ex. E]. In general
terms, the Secretary's guidance as to drop boxes informed
the counties that the use of drop boxes was authorized
by the Election Code and recommended “best practices”
for their use. Her latest guidance offered standards for
(1) where drop boxes should be located, [ECF 504-23, §
1.2], (2) how drop boxes should be designed and what
signage should accompany them, [id. at §§ 2.2-2.3], (3) what
security measures should be employed, [id. at § 2.5], and
(4) what procedures should be implemented for collecting
and returning ballots to the county election office, [id. at §§
3.1-3.3, 4].
As to the location of drop boxes, the Secretary recommended
that counties consider the following criteria, [id. at § 1.2]:
• Locations that serve heavily populated urban/suburban
areas, as well as rural areas;
• Locations near heavy traffic areas such as commercial
corridors, large residential areas, major employers and
public transportation routes;
• Locations that are easily recognizable and accessible
within the community;
• Locations in areas in which there have historically been
delays at existing polling locations, and areas with
historically low turnout;
• Proximity to communities with historically low vote by
mail usage;
• Proximity to language minority communities;
• Proximity to voters with disabilities;
• Proximity to communities with low rates of household
vehicle ownership;
• Proximity to low-income communities;
• Access to accessible and free parking; and

1. Secretary Boockvar's guidance with respect to drop
boxes.

• The distance and time a voter must travel by car or public
transportation.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1993 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 63 Document 78-3

12

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

With respect to drop-box design criteria, the Secretary
recommended to counties, [id. at § 2.2]:
*12 • Hardware should be operable without any tight
grasping, pinching, or twisting of the wrist;
• Hardware should require no more than 5 lbs. of pressure
for the voter to operate;
• Receptacle should be operable within reach-range of 15 to
48 inches from the floor or ground for a person utilizing
a wheelchair;
• The drop-box should provide specific points identifying
the slot where ballots are inserted;
• The drop-box may have more than one ballot slot (e.g. one
for drive-by ballot return and one for walk-up returns);
• To ensure that only ballot material can be deposited
and not be removed by anyone but designated county
board of election officials, the opening slot of a dropbox should be too small to allow tampering or removal
of ballots; and
• The opening slot should also minimize the ability for
liquid to be poured into the drop-box or rainwater to seep
in.
The Secretary's guidance as to signage recommended, [id. at
§ 2.3]:
• Signage should be in all languages required under the
federal Voting Rights Act of 1965 (52 U.S.C. Sec.
10503);
•

Signage should display language stating that
counterfeiting, forging, tampering with, or destroying
ballots is a second-degree misdemeanor pursuant to
sections 1816 and 1817 of the Pennsylvania Election
Code (25 P.S. §§ 3516 and 3517);

• Signage should also provide a statement that third-party
return of ballots is prohibited unless the person returning
the ballot is rendering assistance to a disabled voter or
an emergency absentee voter. Such assistance requires a
declaration signed by the voter and the person rendering
assistance; and
• Signage should provide a statement requesting that the
designated county elections official should be notified
immediately in the event the receptacle is full, not

functioning, or is damaged in any fashion, and should
provide a phone number and email address for such
purpose.
With respect to ballot security, the Secretary stated that county
boards should implement the following security measures,
[id. at § 2.5]:
• Only personnel authorized by the county board of
elections should have access to the ballots inside of a
drop-box;
• Drop-boxes should be secured in a manner to prevent their
unauthorized removal;
• All drop-boxes should be secured by a lock and sealed
with a tamper-evident seal. Only authorized election
officials designated by the county board of elections may
access the keys and/or combination of the lock;
• Drop-boxes should be securely fastened in a manner as
to prevent moving or tampering, such as fastening the
drop-box to concrete or an immovable object;
• During the hours when the staffed return site is closed
or staff is unavailable, the drop-box should be placed
in a secure area that is inaccessible to the public and/or
otherwise safeguarded;
• The county boards of election should ensure adequate
lighting is provided at all ballot return sites when the site
is in use;
• When feasible, ballot return sites should be monitored
by a video security surveillance system, or an internal
camera that can capture digital images and/or video. A
video security surveillance system can include existing
systems on county, city, municipal, or private buildings.
Video surveillance should be retained by the county
election office through 60 days following the deadline to
certify the election; and
*13 • To prevent physical damage and unauthorized
entry, the drop-box at a ballot return site located
outdoors should be constructed of durable material able
to withstand vandalism, removal, and inclement weather.
With respect to ballot collection and “chain of custody”
procedures, the Secretary stated that counties should adhere
to the following standards, [id. at §§ 3.1-3.2]:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1994 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 63 Document 78-3

13

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

• Ballots should be collected from ballot return sites only
by personnel authorized by the county board of elections
and at times determined by the board of elections, at least
every 24 hours, excluding Saturdays and Sundays;
• The county board of elections should designate at least
two election officials to collect voted ballots from
a ballot return site. Each designated election official
should carry identification or an official designation
that identifies them as an election official authorized to
collect voted ballots;
• Election officials designated to collect voted ballots by
the board of elections should sign a declaration declaring
that he or she will timely and securely collect and return
voted ballots, will not permit any person to tamper with
a ballot return site or its contents, and that he or she will
faithfully and securely perform his or her duties;

that the form is traceable to its respective secure ballot
container; and
• The county elections official at the county election office
or central count location should note the number of
ballots delivered on the retrieval form.
And finally, as to election day and post-election day
procedures with respect to drop boxes, the Secretary provided
as follows, [id. at §§ 3.3, 4]:
• The county board of elections should arrange for
authorized personnel to retrieve ballots on election night
and transport them to the county board of elections for
canvassing of the ballots;
• Authorized personnel should be present at ballot return
sites immediately prior to 8:00 p m. or at the time the
polls should otherwise be closed;

• The designated election officials should retrieve the voted
ballots from the ballot return site and place the voted
ballots in a secure ballot transfer container;

• At 8:00 p.m. on election night, or later if the polling
place hours have been extended, all ballot return sites
and drop-boxes must be closed and locked;

• The designated election officials should note on Ballot
Return Site Collection Forms the site and unique
identification number of the ballot return site and the
date and time of retrieval;

*14 • Staff must ensure that no ballots are returned to the
ballot return site after the close of polls;

• Ballots collected from any ballot return site should
be immediately transported to the county board of
elections;
• Upon arrival at the office of the county board of elections,
the county board of elections, or their designee(s),
should note the time of arrival on the same form, as
described above;
• The seal number should be verified by a county election
official or a designated representative;
• The county board of elections, or their designee(s),
should inspect the drop-box or secure ballot transfer
container for evidence of tampering and should receive
the retrieved ballots by signing the retrieval form and
including the date and time of receipt. In the event
tampering is evident, that fact must be noted on the
retrieval form;
• The completed collection form should be maintained in
a manner proscribed by the board of elections to ensure

• After the final retrieval after the closing of the polls, the
drop-box must be removed or locked and/or covered to
prevent any further ballots from being deposited, and a
sign shall be posted indicating that polling is closed for
the election; and
• Any ballots collected from a return site should be
processed in the same manner as mail-in ballots
personally delivered to the central office of the county
board of elections official by the voter and ballots
received via the United States Postal Service or any other
delivery service.
The Secretary and her staff developed this guidance
in consultation with subject-matter experts within her
Department and after review of the policies, practices, and
laws in other states where drop boxes have been used. [ECF
549-6, pp. 23:14-22]. The evidence reflects at least one
instance in which the Secretary's deputies reiterated that these
“best practices” should be followed in response to inquiries
from county officials considering whether to use drop boxes.
[ECF 549-32 (“Per our conversation, the list of items are
things the county must keep in mind if you are going to
provide a box for voters to return their ballots in person.”) ].

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1995 Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 63 Document 78-3

14

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Approximately 24 counties plan to use drop boxes during the
November general election, to varying degrees. [ECF 549-28;
ECF 504-1]. Of these, about nine counties intend to staff the
drop boxes with county officials, while about 17 counties
intend to use video surveillance in lieu of having staff present.
[ECF 549-28].

2. Defendants’ and Intervenors’ evidence of the benefits
and low risks associated with drop boxes.
Secretary Boockvar advocates for the use of drop boxes
as a “direct and convenient way” for voters to deliver
cast ballots to their county boards of elections, “thereby
increasing turnout.” [ECF 547, p. 22 ¶ 54 (citing 549-11 at
pp. 10-11) ]. The Secretary also touts the special benefits
of expanding drop-box use in the ongoing COVID-19
pandemic. Specifically, she asserts that drop boxes reduce
health risks and inspire voter confidence because “many
voters understandably do not wish to cast their votes in person
at their polling place on Election Day” due to COVID-19.
[Id. at ¶¶ 55, 57 (citing ECF 549-2 ¶ 39; ECF 549-11 at
p. 10; 549-8, ¶ 95) ]. Drop boxes, she says, allow voters
to vote in person without coming into “close proximity to
other members of the public, compared to in-person voting
or personally delivering a mail-in ballot to a public office
building.” [Id. at ¶ 57].
Secretary Boockvar also states that drop boxes are highly
convenient, and cost-saving, for both counties and voters. For
counties, she notes that “24-hour secure ballot drop boxes” are
“cost-effective measures ... as they do not have to be staffed by
election judges.” [Id. at p. 24 ¶ 62 (citing ECF 549-11 at p. 11);
ECF 549-9 at ¶ 34]. As for voters, the Secretary explains that,
in a state where “ten counties ... cover more than 1,000 square
miles” and “two-thirds” of counties “cover more than 500
square miles,” many Pennsylvania voters “could be required
to drive dozens of miles (and perhaps in excess of 100 miles)
if he or she wished to deposit his or her mail-in ballot in person
at the main county board of elections office.” [Id. at ¶ 58
(citing ECF 549-29) ].
*15 In addition to any tangible benefit drop boxes may have
for voter access and turnout, Secretary Boockvar also states
that drop boxes have a positive impact on voter confidence.
In particular, she cites a recent news article, and a letter sent
by the General Counsel of the U.S. Postal Service regarding
Pennsylvania's absentee and mail-in ballot deadline, which

have raised concerns over the timeliness and reliability of the
U.S. Postal Service. [Id. at ¶¶ 60-61 (citing ECF 549-13; ECF
549-14); ECF 549-17; ECF 549-2 ¶¶ 42-43]. Voters’ fears that
votes returned by mail will not be timely counted could, the
Secretary worries, “justifiably dissuade voters from wanting
to rely upon the Postal Service for return of their mail-in or
absentee ballot.” [ECF 547, ¶ 61]. Drop boxes, she says, can
address this concern by allowing voters to safely return mailin ballots to an in-person location.
In exchange for these benefits, the Secretary insists that any
potential security risk associated with drop boxes is low. She
notes that the federal Department of Homeland Security has
released guidance affirming that a “ballot drop box provides
a secure and convenient means for voters to return their mail
ballot,” and recommending that states deploy one drop box
for every 15,000 to 20,000 registered voters. [Id. at ¶¶ 63-65
(citing ECF 549-24, p. 1) ]. She also points to a purported lack
of evidence of systemic ballot harvesting or any attempts to
tamper with, destroy, or otherwise commit voter fraud using
drop boxes, either in Pennsylvania's recent primary election,
or in other states that have used drop boxes for many years.
[Id. at ¶¶ 68-74 (citations omitted) ]. And she asserts that “[i]n
the last 20 years in the entire state of Pennsylvania, there have
been fewer than a dozen confirmed cases of fraud involving
a handful of absentee ballots” among the many millions of
votes cast during that time period. [Id. at ¶ 70 (citing ECF
549-10, pp. 3-4) ].
Finally, the Secretary, and other Defendants and Intervenors,
argue that Pennsylvania already has robust measures in
place to prevent fraud, including its criminal laws, voter
registration system, mail-in ballot application requirement,
and canvassing procedures. [Id. at ¶¶ 66-67 (citing 25 P.S.
§§ 3516 - 3518) ]; [ECF 549-9, p. 15, ¶¶ 46-47 (“These
allegations are not consistent with my experience with drop
box security, particularly given the strong voter verification
procedures that are followed by elections officials throughout
the country and in Pennsylvania. Specifically, the eligibility
and identity of the voter to cast a ballot is examined by an
election judge who reviews and confirms all the personal
identity information provided on the outside envelope. Once
voter eligibility is confirmed, the ballot is extracted and
separated from the outside envelope to ensure the ballot
remains secret. During this step, election judges confirm
that there is only one ballot in the envelope and checks for
potential defects, such as tears in the ballot.... Regardless
of the receptacle used for acceptance of the ballot (drop
box versus USPS mailbox), ballot validation occurs when

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1996 Case 2:20-cv-01771-PP Filed 12/09/20 Page 15 of 63 Document 78-3

15

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

the ballot is received by the county board of elections. The
validation is the same regardless of how the ballots are
collected or who delivers the ballot, even where that delivery
contravenes state law.”) ].
Defendants and Intervenors also point to several expert
reports expressing the view that drop boxes are both low risk
and beneficial. These experts include:
Professor Matthew A. Barreto, a Professor of Political
Science and Chicana/o Studies at UCLA. [ECF 549-7].
Professor Barreto offers the opinion that ballot drop boxes are
an important tool in facilitating voting in Black and Latino
communities. Specifically, he discusses research showing that
Black and Latino voters are “particularly concerned about
the USPS delivering their ballots.” [Id. at ¶ 22]. And he
opines that ballot drop boxes help to reassure these voters that
their vote will count, because “there is no intermediary step
between the voters and the county officials who collect the
ballot.” [Id. at ¶ 24].
*16 Professor Donald S. Burke, a medical doctor and
Distinguished University Professor of Health Science and
Policy, Jonas Salk Chair in Population Health, and Professor
of Epidemiology at the University of Pittsburgh. [ECF 549-8].
Professor Burke details the “significant risk of exposure” to
COVID-19 in “enclosed areas like polling places.” [Id. at ¶
69]. He opines that “depositing a ballot in a mailbox and
depositing a ballot in a drop-box are potential methods of
voting that impart the least health risk to individual voters, and
the least public health risk to the community.” [Id. at ¶ 95].
Amber McReynolds, the CEO of the National Vote at Home
Institute, with 13 years of experience administering elections
as an Elections Director, Deputy Director, and Operations
Manager for the City and County of Denver, Colorado. [ECF
549-9]. Ms. McReynolds opines that “[b]allot drop-boxes can
be an important component of implementing expanded mailin voting” that are “generally more secure than putting a
ballot in post office boxes.” [Id. at ¶ 16 (a) ]. She notes that
“[d]rop boxes are managed by election officials ... delivered
to election officials more quickly than delivery through the
U.S. postal system, and are secure.” [Id.].
Ms. McReynolds also opines that Secretary Boockvar's
guidance with respect to drop boxes is “consistent with
best practices and advice that NVAHI has provided across
jurisdictions.” [Id. at ¶ 35]. But she also notes that “[b]est
practices will vary by county based on the county's available

resources, population, needs, and assessment of risk.” [Id. at
¶ 52].
More generally, Ms. McReynolds argues that “[d]rop-boxes
do not create an increased opportunity for fraud” as compared
to postal boxes. [Id. at ¶ 44]. She also suggests that
Pennsylvania guards against such fraud through other “strong
voter verification procedures,” including “ballot validation
[that] occurs when the ballot is received by the county
board of elections” and “[r]econciliation procedures adopted
by election officials ... [to] protect against the potential
risk of double voting.” [Id. at ¶¶ 46-48]. She notes that
“Pennsylvania's balloting system requires that those who
request a mail-in vote and do not return the ballot (or spoil
the mail-in ballot at their polling place), can only vote a
provisional ballot” and “[i]f a mail-in or absentee ballot was
submitted by an individual, their provisional ballot is not
counted.” [Id. at ¶ 48].
Professor Lorraine C. Minnite, an Associate Professor and
Chair of the Department of Public Policy and Administration
at Rutgers University-Camden. [ECF 549-10]. Professor
Minnite opines that “the incidence of voter fraud in
contemporary U.S. elections is exceedingly rare, including
the incidence of voter impersonation fraud committed
through the use of mail-in absentee ballots.” [Id. at p. 3].
In Pennsylvania specifically, she notes that “[i]n the last 20
years ... there have been fewer than a dozen confirmed cases
of fraud involving a handful of absentee ballots, and most
of them were perpetrated by insiders rather than ordinary
voters.” [Id. at pp. 3-4]. As a “point of reference,” she notes
that 1,459,555 mail-in and absentee ballots were cast in
Pennsylvania's 2020 primary election alone. [Id. at 4].
Professor Robert M. Stein, a Professor of Political Science
at Rice University and a fellow in urban politics at the
Baker Institute. [ECF 549-11]. Professor Stein opines that
“the Commonwealth's use of drop boxes provides a number
of benefits without increasing the risk of mail-in or absentee
voter fraud that existed before drop boxes were implemented
because (manned or unmanned) they are at least as secure
as U.S. Postal Service (‘USPS’) mailboxes, which have been
successfully used to return mail-in ballots for decades in
the Commonwealth and elsewhere around the U.S.” [Id. at
p. 3]. According to Professor Stein, the use of drop boxes
“has been shown to increase turnout,” which he suggests is
particularly important “during a global pandemic and where
research has shown that natural and manmade disasters have
historically had a depressive effect on voter turnout.” [Id. at

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1997 Case 2:20-cv-01771-PP Filed 12/09/20 Page 16 of 63 Document 78-3

16

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

p. 4]. Professor Stein notes that “[d]rop boxes are widely
used across a majority of states as a means to return mail-in
ballots” and he is “not aware of any studies or research that
suggest that drop boxes (manned or unmanned) are a source
for voter fraud.” [Id.]. Nor is he aware “of any evidence that
drop boxes have been tampered with or led to the destruction
of ballots.” [Id.].
*17 Professor Paul Gronke, a Professor of Political
Science at Reed College and Director of the Early
Voting Information Center. [ECF 545-7]. Professor Gronke
recommends that “drop boxes should be provided in
every jurisdiction that has significant (20% or more)
percentage[ ] of voters casting a ballot by mail, which includes
Pennsylvania” for the general election. [Id. at ¶ 6]. He
avers that “[s]cientific research shows that drop boxes raise
voter turnout and enhance voter confidence in the elections
process.” [Id. at ¶ 7]. Voters, he explains, “utilize drop boxes
heavily—forty to seventy percent of voters in vote by mail
states and twenty-five percent or more in no-excuse absentee
states.” [Id.]. Professor Gronke further states that he is “not
aware of any reports that drop boxes are a source for voter
fraud” despite having “been in use for years all over the
country.” [Id. at ¶ 8]. And he suggests that the use of drop
boxes is “especially important” in an election “that will be
conducted under the cloud of the COVID-19 pandemic, and
for a state like Pennsylvania that is going to experience an
enormous increase in the number of by-mail ballots cast by
the citizenry of the state.” [Id. at ¶ 9].
Based on this evidence, and the purported lack of any contrary
evidence showing great risks of fraud associated with the
use of drop boxes, Defendants and Intervenors argue that
Pennsylvania's authorization of drop boxes, and the counties’
specific implementation of them, furthers important state
interests at little cost to the integrity of the election system.

3. Plaintiffs’ evidence of the risks of fraud and vote
dilution associated with drop boxes.
Plaintiffs, on the other hand, argue that the drop boxes allow
for an unacceptable risk of voter fraud and “illegal delivery
or ballot harvesting” that, when it occurs, will “dilute” the
votes of all lawful voters who comply with the Election
Code. See, e.g., [ECF 461, ¶¶ 127-128]. As evidence of the
dilutive impact of drop boxes, Plaintiffs offer a combination
of anecdotal and expert evidence.

Foremost among this evidence is the expert report of Greg
Riddlemoser, the former Director of Elections and General
Registrar for Stafford County, Virginia from 2011 until 2019.
[ECF 504-19]. According to Mr. Riddlemoser, “voter fraud
exists.” [Id. at p. 2]. He defines the term “voter fraud” to
mean any “casting and/or counting of ballots in violation of
a state's election code.” [Id.]. Examples he gives include:
“Voting twice yourself—even if in multiple jurisdictions,”
“voting someone else's ballot,” and “[e]lection officials
giving ballots to or counting ballots from people who were
not entitled to vote for various reasons.” [Id. at pp. 2-3]. All
of these things, he asserts, are “against the law and therefore
fraudulent.” [Id.].3
Mr. Riddlemoser argues that “ballot harvesting” (which is
the term Plaintiffs use to refer to situations in which an
individual returns the ballots of other people) “persists in
Pennsylvania.” [Id. at p. 3]. He points to the following
evidence to support this opinion:
• Admissions by Pennsylvania's Deputy Secretary
for Elections and Commissions, Jonathan Marks,
that “several Pennsylvania counties permitted ballot
harvesting by counting ballots that were delivered in
violation of Pennsylvania law” during the recent primary
election, [Id.];
• “[S]everal instances captured by the media where voters
in the June 2020 Primary deposited multiple ballots into
unstaffed ballot drop boxes,” [Id. at p. 4];
• “Other photographs and video footage of at least one
county's drop box (Elk County) on Primary Election
day” which “revealed additional instances of third-party
delivery,” [Id.]; and
• “Documents produced by Montgomery County” which
“reveal that despite signs warning that ballot harvesting
is not permitted, people during the 2020 Primary
attempted to deposit into the five drop boxes used by that
county ballots that were not theirs,” [Id.].
*18 With respect to the use of “unstaffed” or “unmanned”
ballot drop boxes, Mr. Riddlemoser expresses the opinion
that “the use of unmanned drop boxes presents the easiest
opportunity for voter fraud” and “certain steps must be taken
to make drop boxes ‘secure’ and ‘monitored.’ ” [Id. at p. 16].
He states that, to be “secure,” drop boxes must be “attended”
by “sworn election officials” at all times (i.e., “never left

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1998 Case 2:20-cv-01771-PP Filed 12/09/20 Page 17 of 63 Document 78-3

17

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

unattended at any time they are open for ballot drop-off.”).
[Id.]. He further suggests that officials stationed at drop boxes
must be empowered, and required, to “verify the person
seeking to drop off a ballot is the one who voted it and is
not dropping off someone else's ballot.” [Id.]. Doing so, he
says, would, in addition to providing better security, also
“allow the election official to ask the voter if they followed
the instructions they were provided ... and assist them in
doing so to remediate any errors, where possible, before ballot
submission.” [Id.].

Beyond Mr. Riddlemoser's expert testimony, Plaintiffs proffer
several other pieces of evidence to support their claims
that drop boxes pose a dilutive threat to the ballots of
lawful voters. Most notably, they present photographs and
video stills of, by the Court's count, approximately seven
individuals returning more than one ballot to drop boxes
in Philadelphia and Elk County (the same photographs
referenced by Mr. Riddlemoser). [ECF 504-19, PDF pp.
49-71].
*19 Those photographs depict the following:

In addition to being “manned,” Mr. Riddlemoser suggests
that certain procedures with respect to ballot collection are
necessary to ensure the integrity of votes cast in drop boxes.
For example, he suggests that, at the end of each day, drop
boxes, which should themselves be “tamperproof,” should
“be verifiably completely emptied into fireproof/tamperproof
receptacles, which are then sealed and labeled by affidavit as
to whom, where, when, etc.” [Id.] Once sealed, the containers
“must then be transported by sworn officials in a county
owned vehicle (preferably marked law enforcement) back
to the county board where they are properly receipted and
safeguarded.” [Id.]. Emptied drop boxes should also be sealed
at the end of each day “such that they are not able to accept
any additional ballots until they are ‘open’ again[.]” [Id.]. And
boxes should be “examined to ensure no ballots are in the
box, that nothing else is inside the box, and that the structural
integrity and any security associated with the box remains
intact.” [Id.]. All of this, he suggests, should also be “available
for monitoring by poll watchers.” [Id.].
According to Mr. Riddlemoser, anything short of these robust
procedures won't do. In particular, “video cameras would not
prevent anyone from engaging in activity that could or is
designed to spoil the ballots inside the box; such as dumping
liquids into the box, lighting the ballots on fire by using
gasoline and matches, or even removing the box itself.” [Id.
at p. 17]. Even if the “identity of the person responsible may
be determined ... the ballots themselves would be destroyed
—effectively disenfranchising numerous voters.” [Id.]. And
given “recent footage of toppled statues and damage to
government buildings” in the news, Mr. Riddlemoser finds
the “forcible removal of ballot drop boxes” to be “a distinct
possibility.” [Id.]. In addition to increasing the risk of ballot
destruction, Mr. Riddlemoser notes that reliance on video
cameras would also “not prohibit someone from engaging in
ballot harvesting by depositing more than one ballot in the
drop box[.]” [Id.].

• An unidentified woman holding what appear to be two
ballots at a Philadelphia drop box.

• Instagram user “thefoodiebarrister” posing for a selfie
with two ballots in Philadelphia; captioned, in part,
“dropping of [sic] my votes in a designated ballot
drop box.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1999 Case 2:20-cv-01771-PP Filed 12/09/20 Page 18 of 63 Document 78-3

18

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

• A photograph posted to social media showing a hand
placing two ballots in a drop box; captioned, in part,
“Cory and I voted!”

• A photograph of an unidentified man wearing a
“Philadelphia Water” sweater and hat, placing two
ballots in a Philadelphia drop box.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2000 Case 2:20-cv-01771-PP Filed 12/09/20 Page 19 of 63 Document 78-3

19

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

• Several video stills that, according to Plaintiffs, show
voters depositing more than one ballot in an Elk
County drop box.

ballots that lacked a completed certification on the
outside of the envelope. [Id. (citation omitted) ].
• The recent guilty plea of the former Judge of Elections
in South Philadelphia, Domenick J. DeMuro, to adding
fraudulent votes to voting machines on election day.
[ECF 461, ¶ 61]; see United States v. DeMuro, No. 20cr-112 (E.D. Pa. May 21, 2020).
• The 2014 guilty plea of Harmar Township police chief
Richard Allen Toney to illegally soliciting absentee
ballots to benefit his wife and her running mate in the
2009 Democratic primary for town council, [ECF 461,
¶ 69];
• The 2015 guilty plea of Eugene Gallagher for unlawfully
persuading residents and non-residents of Taylor, in
Lackawanna County, Pennsylvania, to register for
absentee ballots and cast them for him during his
councilman candidacy in the November 2013 election,
[Id.];

In addition to these photographs and video stills, Plaintiffs
also provide a May 24, 2020, email sent by an official
in Montgomery County (which placed security guards to
monitor its drop boxes) observing that security “have turned
people away yesterday and today without incident who had
ballots other than their own.” [ECF 504-28].
Separate and apart from this evidence specific to the use of
drop boxes, Plaintiffs and their expert also provide evidence
of instances of election fraud, voter fraud, and illegal voting
generally. These include, for example:
• A case in which a New Jersey court ordered a
new municipal election after a city councilman and
councilman-elect were charged with fraud involving
mail-in ballots. [ECF 504-19, p. 3].
• A New York Post article written by an anonymous
fraudster who claimed to be a “master at fixing mail-in
ballots” and detailed his methods. [Id.].
• Philadelphia officials’ admission that approximately 40
people were permitted to vote twice during the 2020
primary elections. [Id.].
• A YouTube video purporting to show Philadelphia
election officials approving the counting of mail-in

*20 • The 1999 indictment of Representative Austin J.
Murphy in Fayette County for forging absentee ballots
for residents of a nursing home and adding his wife as a
write-in candidate for township election judge, [Id.];
• The 1994 Eastern District of Pennsylvania and Third
Circuit case Marks v. Stinson, which involved an alleged
incident of extensive absentee ballot fraud by a candidate
for the Pennsylvania State Senate, see Marks v. Stinson,
19 F.3d 873 (3d Cir. 1994); Marks v. Stinson, No.
93-6157, 1994 WL 146113 (E.D. Pa. Apr. 26, 1994),
[ECF 461, ¶ 78]; and
• A report from the bipartisan Commission on Federal
Election Reform, chaired by former President Jimmy
Carter and former Secretary of State James A. Baker
III, which observed that absentee voting is “the largest
source of potential voter fraud” and proposed that states
“reduce the risks of fraud and abuse in absentee voting
by prohibiting ‘third-party’ organizations, candidates,
and political party activists from handling absentee
ballots.” [ECF 461, ¶¶ 66-67, 80].
C. Facts relevant to signature comparison.
Many of the facts relevant to Plaintiffs’ signature-comparison
claim relate to the verification procedures for mail-in and
absentee ballots, on one hand, and those procedures for inperson voting, on the other. These are described below.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2001 Case 2:20-cv-01771-PP Filed 12/09/20 Page 20 of 63 Document 78-3

20

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

canvassing the mail-in ballots no earlier than election day. Id.
at § 3146.8(g)(1.1).
1. Mail-in and absentee ballot verification.
As noted above, Pennsylvania does not distribute unsolicited
mail-in and absentee ballots. Rather, a voter must apply for
the ballot (and any voter can). [ECF 549-2, ¶ 64]. As part of
the application for a mail-in ballot,4 an applicant must provide
certain identifying information, including name, date of birth,
length of time as a resident of the voting district, voting
district if known, party choice in the primary, and address
where the ballot should be sent. 25 P.S. § 3150.12(b). In
applying for a mail-in ballot, the applicant must also provide
“proof of identification,” which is defined by statute as that
person's driver's license number, last four digits of Social
Security number, or another specifically approved form of
identification. [ECF 549-2, ¶ 64; ECF 549-27]; 25 P.S. §
2602(z.5)(3). A signature is not mentioned in the definition
of “proof of identification.” 25 P.S. § 2602(z.5)(3). However,
if physically capable, the applicant must sign the application.
Id. at § 3150.12(c)-(d).
Upon receiving the mail-in ballot application, the county
board of elections determines if the applicant is qualified
by “verifying the proof of identification and comparing the
information provided on the application with the information
contained on the applicant's permanent registration card.”
25 P.S. § 3150.12b(a). The county board of elections then
either approves the application5 or “immediately” notifies
the applicant if the application is not approved. Id. at §
3150.12b(a), (c). Upon approval, the county mails the voter
the mail-in ballot.
*21 After receiving the ballot, the mail-in voter must “mark
the ballot” with his or her vote, insert the ballot into the
“secrecy” envelope, and place the “secrecy” envelope into
a larger envelope. Id. at § 3150.16(a). Then, the voter must
“fill out, date and sign the declaration printed on [the larger]
envelope. [The larger] envelope shall then be securely sealed
and the elector shall send [it] by mail ... or deliver it in person
to said county board of election.” Id. The declaration on the
larger envelope must be signed, unless the voter is physically
unable to do so. Id. at § 3150.16(a)-(a.1).
Once the voter mails or delivers the completed mail-in ballot
to the appropriate county board of elections, the ballot is kept
“in sealed or locked containers until they are to be canvassed
by the county board of elections.” Id. at § 3146.8(a). The
county boards of elections can begin pre-canvassing and

When pre-canvassing and canvassing the mail-in ballots, the
county boards of elections must “examine the declaration on
the [larger] envelope of each ballot ... and shall compare the
information thereon with that contained in the ...Voters File.”
Id. at § 3146.8(g)(3). The board shall then verify the “proof
of identification” and shall determine if “the declaration [on
the larger envelope] is sufficient.” Id. If the information in the
“Voters File ... verifies [the elector's] right to vote,” the ballot
shall be counted. Id.

2. In-person voting verification.
When a voter decides to vote in-person on election day, rather
than vote by mail, the procedures are different. There is no
application to vote in person. Rather, on election day, the inperson voter arrives at the polling place and “present[s] to
an election officer proof of identification,” which the election
officer “shall examine.” Id. at § 3050(a). The in-person voter
shall then sign a voter's certificate” and give it to “the election
officer in charge of the district register.” Id. at § 3050(a.3)
(1). Next, the election officer shall “announce the elector's
name” and “shall compare the elector's signature on his voter's
certificate with his signature in the district register.” Id. at
§ 3050(a.3)(2). If the election officer believes the signature
to be “genuine,” the in-person voter may vote. Id. But if the
election officer does not deem the signature “authentic,” the
in-person voter may still cast a provisional ballot and is given
the opportunity to remedy the deficiency. Id.

3. The September 11, 2020, and September 28, 2020, sets
of guidance.
In September 2020, Secretary Boockvar issued two new
sets of guidance related to signature comparisons of
mail-in and absentee ballots and applications. The first,
issued on September 11, 2020, was titled “Guidance
Concerning Examination of Absentee and Mail-In Ballot
Return Envelopes.” [ECF 504-24]. The guidance stated,
in relevant part, the “Pennsylvania Election Code does
not authorize the county board of elections to set aside
returned absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” [Id. at p. 3]. The
second set of guidance, issued on September 28, 2020, was
titled, “Guidance Concerning Civilian Absentee and Mail-

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2002 Case 2:20-cv-01771-PP Filed 12/09/20 Page 21 of 63 Document 78-3

21

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

In Ballot Procedures.” [ECF 504-25]. This September 28,
2020, guidance stated, in relevant part, “The Election Code
does not permit county election officials to reject applications
or voted ballots based solely on signature analysis. ... No
challenges may be made to mail-in and absentee ballots at
any time based on signature analysis.” [Id. at p. 9]. Thus, as
evidenced by these two sets of guidance, Secretary Boockvar
advised the county boards of elections not to engage in a
signature-comparison analysis of voters’ signatures on ballots
and applications for ballots.
*22 Most of the counties intend to follow the Secretary's
guidance and will not compare signatures on mail-in ballots
and applications for the upcoming general election. E.g.,
[ECF 504-1]. A few counties, however, stated their intent to
not comply with the guidance, and instead would compare
and verify the authenticity of signatures. E.g., [id. (noting the
counties of Cambria, Elk, Franklin, Juniata, Mifflin, Sullivan,
Susquehanna, and Wyoming, as not intending to follow
Secretary Boockvar's guidance to not compare signatures) ].
According to Defendants, there are valid reasons to not
require signature comparisons for mail-in and absentee
ballots. For example, Secretary Boockvar notes that signature
verification is a technical practice, and election officers are
not “handwriting experts.” [ECF 549-2, p. 19, ¶ 68]. Secretary
Boockvar also notes that voters’ signatures can change
over time, and various medical conditions (e.g., arthritis)
can impact a person's signature. [Id.] Defendants’ expert,
Amber McReynolds, also finds that “signature verification”
involves “inherent subjectivity.” [ECF 549-9, p. 20, ¶ 64].
Ms. McReynolds further notes the “inherent variability of
individuals’ signatures over time.” [Id.] And according to
Secretary Boockvar, these are just some reasons Pennsylvania
implements verification procedures other than signature
comparisons for mail-in voters, who, unlike in-person voters,
are not present when their signature would be verified. [ECF
549-2, p. 20, ¶ 69].
Plaintiffs’ expert, Greg Riddlemoser, on the other hand, states
that signature comparison is “a crucial security aspect of voteby-mail” and failing to verify signatures on mail-in ballots
would “undermine voter confidence and would increase the
possibility of voter fraud.” [ECF 504-19, pp. 10-11]. Mr.
Riddlemoser asserts that Secretary Boockvar's September
11, 2020, and September 28, 2020, guidance “encourage,
rather than prevent, voter fraud.” [Id. at p. 12]. As such, Mr.
Riddlemoser explains that mail-in voters should be subject

to the same signature-comparison requirement as in-person
voters. [Id. at pp. 13-14].

4. Secretary Boockvar's King's Bench petition.
In light of this case and the parties’ disagreement over
whether the Election Code mandates signature comparison
for mail-in ballots, Secretary Boockvar filed a “King's Bench”
petition with the Pennsylvania Supreme Court on October 4,
2020. In that petition, she asked the Pennsylvania Supreme
Court to exercise its extraordinary jurisdiction, in light of
the impending election, to clarify whether the Election Code
mandates signature comparison of mail-in and absentee
ballots and applications. [ECF 556, p. 11; ECF 557].
On October 7, 2020, several groups, including Donald J.
Trump for President, Inc. and the Republican National
Committee—who are Plaintiffs in this case—moved to
intervene as Respondents in the Pennsylvania Supreme Court
case. [ECF 571-1]. The Pennsylvania Supreme Court has not
yet decided the motion to intervene or whether to accept the
case. The petition remains pending.
D. Facts relevant to poll-watcher claims.
The position of “poll watcher” is a creation of state statute.
See 25 P.S. § 2687. As such, the Election Code defines how a
poll watcher may be appointed, what a poll watcher may do,
and where a poll watcher may serve.

1. The county-residency requirement for poll watchers.
*23 The Election Code permits candidates to appoint two
poll watchers for each election district. 25 P.S. § 2687(a). The
Election Code permits political parties and bodies to appoint
three poll watchers for each election district. Id.
For many years, the Pennsylvania Election Code required
that poll watchers serve only within their “election district,”
which the Code defines as “a district, division or precinct, ...
within which all qualified electors vote at one polling place.”
25 P.S. § 2687(b) (eff. to May 15, 2002) (watchers “shall
serve in only one district and must be qualified registered
electors of the municipality or township in which the district
where they are authorized to act is located”); 25 P.S. §
2602(g). Thus, originally, poll watching was confined to a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2003 Case 2:20-cv-01771-PP Filed 12/09/20 Page 22 of 63 Document 78-3

22

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

more limited geographic reach than one's county, as counties
are themselves made up of many election districts.
Then, in 2004, the General Assembly amended the relevant
poll-watcher statute to provide that a poll watcher “shall
be authorized to serve in the election district for which the
watcher was appointed and, when the watcher is not serving
in the election district for which the watcher was appointed, in
any other election district in the county in which the watcher
is a qualified registered elector.” 25 P.S. § 2687(b) (eff. Oct.
8, 2004).
This county-residency requirement is in line with (or is, in
some cases, more permissive than) the laws of at least eight
other states, which similarly require prospective poll watchers
to reside in the county in which they wish to serve as a
watcher or (similar to the pre-2004 Pennsylvania statute) limit
poll watchers to a sub-division of the county. See, e.g., Fla.
Stat. Ann. § 101.131(1) (Florida); Ind. Code Ann. § 3-6-8-2.5
(Indiana); Ky. Rev. Stat. Ann. § 117.315(1) (Kentucky); N.Y.
Elec. Law § 8-500(5) (New York); N.C. Gen. Stat. Ann. §
163-45(a) (North Carolina); Tex. Elec. Code Ann. § 33.031(a)
(Texas); S.C. Code Ann. § 7-13-860 (South Carolina); Wyo.
Stat. Ann. § 22-15-109(b) (Wyoming). However, at least one
state (West Virginia) does not provide for poll watchers at all.
See W. Va. Code Ann. § 3-1-37; W. Va. Code Ann. § 3-1-41
The General Assembly has not amended the poll-watcher
statute since 2004, even though some lawmakers have
advocated for the repeal of the residency requirement. See
Cortés, 218 F. Supp. 3d at 402 (observing that legislative
efforts to repeal the poll-watcher residency requirement have
been unsuccessful).
As part of its September 17, 2020, decision, the Pennsylvania
Supreme Court found that the county-residency requirement
does not violate the U.S. or Pennsylvania constitutions.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *31.

2. Where and when poll watchers can be present during
the election.
The Pennsylvania Election Code sets forth the rules for where
and when poll watchers are permitted to be present.
The Election Code provides that poll watchers may be
present “at any public session or sessions of the county
board of elections, and at any computation and canvassing

of returns of any primary or election and recount of ballots
or recanvass of voting machines under” the Code. 25 P.S.
§ 2650. Additionally, one poll watcher for each candidate,
political party, or political body may “be present in the polling
place ... from the time that the election officers meet prior to
the opening of the polls ... until the time that the counting of
votes is complete and the district register and voting check list
is locked and sealed.” 25 P.S. § 2687(b).
*24 During this time, poll watchers may raise objections
to “challenge any person making application to vote.” Id.
Poll watchers also may raise challenges regarding the voters’
identity, continued residence in the election district, or
registration status. 25 P.S. § 3050(d).
Although Pennsylvania has historically allowed absentee
ballots to be returned by U.S. Postal Service or by in-person
delivery to a county board of elections office, the Election
Code does not provide (and has never provided for) any right
to have poll watchers in locations where absentee voters fill
out their ballots (which may include their home, office, or
myriad other locations), nor where those votes are mailed
(which may include their own mailbox, an official U.S. Postal
Service collection box, a work mailroom, or other places
U.S. Postal Service mail is collected), nor at county board of
elections offices. [ECF 549-2, ¶¶ 86-90].
Before Act 77, absentee ballots were held in election districts
rather than centralized at the county board of elections. See
25 P.S. § 3146.8 (eff. Mar. 14, 2012 to Oct. 30, 2019) (“In
all election districts in which electronic voting systems are
used, absentee ballots shall be opened at the election district,
checked for write-in votes in accordance with section 1113A and then either hand-counted or counted by means of the
automatic tabulation equipment, whatever the case may be.”).
At such time (again, before Act 77), poll workers opened
those absentee ballots at each polling place after the close of
the polls. Id. (“Except as provided in section 1302.1(a.2), the
county board of elections shall then distribute the absentee
ballots, unopened, to the absentee voter's respective election
district concurrently with the distribution of the other election
supplies. Absentee ballots shall be canvassed immediately
and continuously without interruption until completed after
the close of the polls on the day of the election in each election
district. The results of the canvass of the absentee ballots shall
then be included in and returned to the county board with the
returns of that district.” (footnote omitted)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2004 Case 2:20-cv-01771-PP Filed 12/09/20 Page 23 of 63 Document 78-3

23

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

With the enactment of Act 77, processing and counting of
mail-in and absentee ballots is now centralized in each county
board of elections, with all mail-in and absentee ballots in
such county held and counted at the county board of elections
(or such other site as the county board may choose) without
regard to which election district those ballots originated from.
25 P.S. § 3146.8(a) (eff. Mar. 27, 2020); [ECF 549-2, ¶ 81].
Under Act 12, counties are permitted to “pre-canvass” mail-in
or absentee ballots received before Election Day beginning at
7:00 a m. on Election Day. 25 P.S. § 3146.8(g)(1.1). Counties
are further permitted to “canvass” ballots received after that
time beginning “no earlier than the close of the polls on the
day of the election and no later than the third day following
the election.” Id. § 3146.8(g)(2).
The Election Code permits “[o]ne authorized representative
of each candidate” and “one representative from each political
party” to “remain in the room in which the absentee ballots
and mail-in ballots are pre-canvassed.” 25 P.S. § 3146.8(g)
(1.1). Similarly, during canvassing, the Election Code permits
“[o]ne authorized representative of each candidate” and “one
representative from each political party” to “remain in the
room in which the absentee ballots and mail-in ballots are
canvassed.” 25 P.S. § 3146.8(g)(2).
*25 The Election Code provisions pertaining to the “precanvass” and “canvass” do not make any separate reference
to poll watchers, instead referring only to the “authorized
representatives” of parties and candidates. See 25 P.S. §
3146.8.
On October 6, 2020, Secretary Boockvar issued guidance
concerning poll watchers and authorized representatives.
[ECF 571-1]. The guidance states that poll watchers “have
no legal right to observe or be present at ... ballot return
sites,” such as drop-box locations. [ECF 571-1, Ex. E,
p. 5]. The guidance also states that while a candidate's
authorized representative may be present when mail-in ballots
are opened (including during pre-canvass and canvass), the
representative cannot challenge those ballots. [Id. at Ex. E, p.
4].
On October 9, 2020, in a separate lawsuit brought by
the Trump Campaign in the Philadelphia County Court of
Common Pleas, the state court there confirmed Secretary
Boockvar's guidance. Specifically, the state court held
that satellite ballot-collection locations, such as drop-box
locations, are not “polling places,” and therefore poll watchers

are not authorized to be present in those places. [ECF 573-1,
p. 12 (“It is clear from a reading of the above sections [of the
Election Code] that the satellite offices where these activities,
and only these activities, occur are true ‘offices of the Board
of Elections’ and are not polling places, nor public sessions
of the Board of Elections, at which watchers have a right to
be present under the Election Code.”) ]. Immediately after
issuance of this decision, the Trump Campaign filed a notice
of appeal, indicating its intention to appeal the decision to
the Commonwealth Court of Pennsylvania. Having just been
noticed, that appeal remains in its infancy as of the date of
this Opinion.

3. Plaintiffs’ efforts to recruit poll watchers for the
upcoming general election.
In order to become a certified poll watcher, a candidate must
meet certain criteria. [ECF 504-20, ¶ 9]. That is, a poll watcher
needs to be “willing to accept token remuneration, which is
capped at $120 under Pennsylvania state law” and must be
able to take off work or otherwise make arrangements to be at
the polling place during its open hours on Election Day, which
can mean working more than 14 hours in a single day. [Id.].
The Pennsylvania Director for Election Day Operations
for the Trump Campaign, James J. Fitzpatrick, stated that
the Trump Campaign wants to recruit poll watchers for
every county in Pennsylvania. [ECF 504-2, ¶ 30]. To that
end, the RNC and the Trump Campaign have initiated
poll-watcher recruitment efforts for the general election by
using a website called DefendYourBallot.com. [ECF 528-14,
265:2-15, 326:14-329-7]. That website permits qualified
electors to volunteer to be a poll watcher. [Id.]. In addition,
Plaintiffs have called qualified individuals to volunteer
to be poll watchers, and worked with county chairs and
conservative activists to identify potential poll watchers. [Id.].
Despite these efforts, the Trump Campaign claims it “is
concerned that due to the residency restriction, it will not have
enough poll watchers in certain counties.” [ECF 504-2, ¶ 25].
Mr. Fitzpatrick, however, could not identify a specific county
where the Trump Campaign has been unable to obtain full
coverage of poll watchers or any county where they have tried
and failed to recruit poll watchers for the General Election.
[ECF 528-14, 261:21-262:3, 263:8-19, 265:2-266:3].
*26 In his declaration, Representative Reschenthaler shared
Mr. Fitzpatrick's concern, stating that he does not believe that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2005 Case 2:20-cv-01771-PP Filed 12/09/20 Page 24 of 63 Document 78-3

24

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

he will “be able to recruit enough volunteers from Greene
County to watch the necessary polls in Greene County.” [ECF
504-6, ¶ 12]. But Representative Reschenthaler did not
provide any information regarding his efforts to recruit poll
watchers to date, or what he plans to do in the future to attempt
to address his concern. See generally [id.].

267:23-268:1]. For example, the Trump Campaign utilized at
least two Democrats among the poll watchers it registered in
the primary. [ECF 528-15, P001648].

Representative Kelly stated in his declaration that he was
“likely to have difficulty getting enough poll watchers from
within Erie County to watch all polls within that county on
election day.” [ECF 504-5, ¶ 16]. Representative Kelly never
detailed his efforts (e.g., the outreach he tried, prospective
candidates he unsuccessfully recruited, and the like), and he
never explained why those efforts aren't likely to succeed in
the future. See generally [id.].

Defendants have advanced several reasons to explain the
rationale behind county-residency requirement for poll
watchers.

In his declaration, Representative Thompson only stated that
based on his experience, “parties and campaigns cannot
always find enough volunteers to serve as poll watchers in
each precinct.” [ECF 504-4, ¶ 20].
According to statistics collected and disseminated by the
Pennsylvania Department of State, there is a gap between the
number of voters registered as Democrats and Republicans
in some Pennsylvania counties. [ECF 504-34]. Plaintiffs’
expert, Professor Lockerbie, believes this puts the party with
less than a majority of voters in that county at a disadvantage
in recruiting poll watchers. [ECF 504-20, ¶ 15]. However,
despite this disadvantage, Professor Lockerbie states that “the
Democratic and Republican parties might be able to meet the
relevant criteria and recruit a sufficient population of qualified
poll watchers who meet the residency requirement[ ].” [Id. at
¶ 16].
Additionally, Professor Lockerbie finds the gap in registered
voters in various counties to be especially problematic for
minor political parties. [Id. at ¶ 16]. As just one example,
according to Professor Lockerbie, even if one were to assume
that all third-party voters were members of the same minor
party, then in Philadelphia County it would require “every 7th
registrant” to be a poll watcher in order for the third party to
have a poll watcher observing each precinct.” [Id.].
Professor Lockerbie believes that disruptions to public
life caused by the COVID-19 pandemic “magnified” the
difficulties in securing sufficient poll watchers. [Id. at ¶ 10].
Nothing in the Election Code limits parties from recruiting
only registered voters from their own party. [ECF 528-14,

4. Rationale for the county-residency requirement.

Secretary Boockvar has submitted a declaration, in which
she has set forth the reasons for and interests supporting
the county-residency requirement. Secretary Boockvar states
that the residency requirement “aligns with Pennsylvania's
county-based election scheme[.]” [ECF 549-2, p. 22, ¶ 77].
“By restricting poll watchers’ service to the counties in which
they actually reside, the law ensures that poll watchers should
have some degree of familiarity with the voters they are
observing in a given election district.” [Id. at p. 22, ¶ 78].
*27 In a similar vein, Intervenors’ expert, Dr. Barreto, in his
report, states that, voters are more likely to be comfortable
with poll watchers that “they know” and are “familiar with ...
from their community.” [ECF 524-1, p. 14, ¶ 40]. That's
because when poll watchers come from the community, “there
is increased trust in government, faith in elections, and voter
turnout[.]” [Id.].
At his deposition, Representative Kelly agreed with this
idea: “Yeah, I think – again, depending how the districts
are established, I think people are probably even more
comfortable with people that they – that they know and they
recognize from their area.” [ECF 524-23, 111:21-25].

LEGAL STANDARD
Summary judgment is appropriate “if the movant shows that
there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). At summary judgment, the Court must ask whether
the evidence presents “a sufficient disagreement to require
submission to the jury or whether it is so one-sided that one
party must prevail as a matter of law.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 251-52, 106 S.Ct. 2505, 91 L.Ed.2d
202 (1986). In making that determination, the Court must
“consider all evidence in the light most favorable to the party

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2006 Case 2:20-cv-01771-PP Filed 12/09/20 Page 25 of 63 Document 78-3

25

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

opposing the motion.” A.W. v. Jersey City Pub. Schs., 486 F.3d
791, 794 (3d Cir. 2007).
The summary-judgment stage “is essentially ‘put up or shut
up’ time for the non-moving party,” which “must rebut the
motion with facts in the record and cannot rest solely on
assertions made in the pleadings, legal memoranda, or oral
argument.” Berckeley Inv. Grp. Ltd. v. Colkitt, 455 F.3d 195,
201 (3d Cir. 2006). If the non-moving party “fails to make
a showing sufficient to establish the existence of an element
essential to that party's case, and on which that party will
bear the burden at trial,” summary judgment is warranted.
Celotex Corp. v. Catrett, 477 U.S. 317, 324, 106 S.Ct. 2548,
91 L.Ed.2d 265 (1986).
“The rule is no different where there are cross-motions for
summary judgment.” Lawrence v. City of Philadelphia, 527
F.3d 299, 310 (3d Cir. 2008). The parties’ filing of crossmotions “does not constitute an agreement that if one is
rejected the other is necessarily justified[.]” Id. But the
Court may “resolve cross-motions for summary judgment
concurrently.” Hawkins v. Switchback MX, LLC, 339 F. Supp.
3d 543, 547 (W.D. Pa. 2018). When doing so, the Court views
the evidence “in the light most favorable to the non-moving
party with respect to each motion.” Id.

DISCUSSION & ANALYSIS
Plaintiffs, Defendants, and Intervenors all cross-move for
summary judgment on all three of Plaintiffs’ remaining
claims, which the Court refers to, in the short-hand, as (1) the
drop-box claim, (2) the signature-comparison claim, and (3)
the poll-watching claim. The common constitutional theory
behind each of these claims is vote dilution. Absent the
security measures that Plaintiffs seek, they fear that others
will commit voter fraud, which will, in turn, dilute their
lawfully cast votes. They assert that this violates the federal
and Pennsylvania constitutions.
The Court will address only the federal-constitutional claims.
For the reasons that follow, the Court finds that Plaintiffs lack
standing to bring their federal-constitutional claims because
Plaintiffs’ injury of vote dilution is not “concrete” for Article
III purposes.
But even assuming Plaintiffs had standing, the Court
also concludes that Defendants’ regulations, conduct, and
election guidance here do not infringe on any right to

vote, and if they do, the burden is slight and outweighed
by the Commonwealth's interests—interests inherent in the
Commonwealth's other various procedures to police fraud, as
well as its overall election scheme.
*28 Finally, because the Court will be dismissing all federalconstitutional claims, it will decline to exercise supplemental
jurisdiction over any of the state-constitutional claims and
will thus dismiss those claims without prejudice.
I. Defendants’ procedural and jurisdictional challenges.
At the outset, Defendants and Intervenors raise a number of
jurisdictional, justiciability, and procedural arguments, which
they assert preclude review of the merits of Plaintiffs’ claims.
Specifically, they assert (1) the claims are not ripe and are
moot, (2) there is a lack of evidence against certain county
boards, and those boards are not otherwise necessary parties,
and (3) Plaintiffs lack standing. The Court addresses each
argument, in turn.
A. Plaintiffs’ claims are ripe and not moot.
Several Defendants have argued that Plaintiffs’ claims in the
Second Amended Complaint are not ripe and are moot. The
Court disagrees.

1. Plaintiffs’ claims are ripe.
The ripeness doctrine seeks to “prevent the courts, through
the avoidance of premature adjudication, from entangling
themselves in abstract disagreements.” Artway v. Attorney
Gen. of N.J., 81 F.3d 1235, 1246-47 (3d Cir. 1996) (cleaned
up). The ripeness inquiry involves various considerations
including whether there is a “sufficiently adversarial posture,”
the facts are “sufficiently developed,” and a party is
“genuinely aggrieved.” Peachlum v. City of York, 333 F.3d
429, 433-34 (3d Cir. 2003). Ripeness requires the case to
“have taken on fixed and final shape so that a court can
see what legal issues it is deciding, what effect its decision
will have on the adversaries, and some useful purpose to
be achieved in deciding them.” Wyatt, Virgin Islands, Inc. v.
Gov't of the Virgin Islands, 385 F.3d 801, 806 (3d Cir. 2004)
(quoting Pub. Serv. Comm'n of Utah v. Wycoff Co., 344 U.S.
237, 244, 73 S.Ct. 236, 97 L.Ed. 291 (1952)). “A dispute is
not ripe for judicial determination if it rests upon contingent
future events that may not occur as anticipated, or indeed may
not occur at all.” Id.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2007 Case 2:20-cv-01771-PP Filed 12/09/20 Page 26 of 63 Document 78-3

26

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Ultimately, “[r]ipeness involves weighing two factors: (1) the
hardship to the parties of withholding court consideration; and
(2) the fitness of the issues for judicial review.” Artway, 81
F.3d at 1247. Unlike standing, ripeness is assessed at the time
of the court's decision (rather than the time the complaint was
filed). See Blanchette v. Connecticut General Ins. Corp., 419
U.S. 102, 139-40, 95 S.Ct. 335, 42 L.Ed.2d 320 (1974).

predominate this lawsuit. As such, the Court finds Plaintiffs’
claims fit for judicial review.

The Court finds that Plaintiffs’ claims are ripe. Applying
the two-factor test here, the Court first concludes that the
parties would face significant hardship if the Court were to
hold that the case was unripe (assuming it was otherwise
justiciable). The general election is less than one month away,
and Plaintiffs assert claims that could significantly affect
the implementation of Pennsylvania's electoral procedures.
Further, if the Court were to find that Plaintiffs’ claims
were not ripe, Plaintiffs would be burdened. This is because
Plaintiffs would then have to either wait until after the election
occurred—and thus after the alleged harms occurred—or
Plaintiffs would have to bring suit on the very eve of the
election, and thus there would be insufficient time for the
Court to address the issues. This hardship makes judicial
review at this time appropriate. The first factor is met.

Some Defendants also assert that Plaintiffs’ claims are moot
because Plaintiffs reference allegations of harm that occurred
during the primary election, and since then, Secretary
Boockvar has issued new guidance and the Pennsylvania
Supreme Court has interpreted the Election Code to clarify
several ambiguities. The Court, however, concludes that
Plaintiffs’ remaining claims are not moot.

*29 Some Defendants argue that because some of the
Secretary's guidance was issued after the 2020 primary
election, Plaintiffs’ claims that rely on such guidance are not
ripe because the guidance has not been implemented in an
election yet. The Court disagrees. Both the allegations in the
Second Amended Complaint, and the evidence presented on
summary judgment, reveal that the guidance issued after the
primary election will apply to the upcoming general election.
This is sufficient to make this a properly ripe controversy.6
The second factor the Court must consider in determining
ripeness is “the fitness of the issues for judicial review.”
Artway, 81 F.3d at 1247. “The principal consideration [for this
factor] is whether the record is factually adequate to enable the
court to make the necessary legal determinations. The more
that the question presented is purely one of law, and the less
that additional facts will aid the court in its inquiry, the more
likely the issue is to be ripe, and vice-versa.” Id. at 1249.
Under this framework, the Court concludes that the issues
are fit for review. The parties have engaged in extensive
discovery, creating a developed factual record for the Court
to review. Further, as shown below, the Court finds it can
assess Plaintiffs’ claims based on the current factual record
and can adequately address the remaining legal questions that

Thus, Plaintiffs’ claims are presently ripe.

2. Plaintiffs’ claims are not moot.

Mootness stems from the same principle as ripeness, but
is stated in the inverse: courts “lack jurisdiction when ‘the
issues presented are no longer ‘live’ or the parties lack
a legally cognizable interest in the outcome.’ ” Merle v.
U.S., 351 F.3d 92, 94 (3d Cir. 2003) (quoting Powell v.
McCormack, 395 U.S. 486, 496, 89 S.Ct. 1944, 23 L.Ed.2d
491 (1969)). Like ripeness and unlike standing, mootness is
determined at the time of the court's decision (rather than at
the time the complaint is filed). See U.S. Parole Commission
v. Geraghty, 445 U.S. 388, 397, 100 S.Ct. 1202, 63 L.Ed.2d
479 (1980). When assessing mootness, the Court may assume
(for purposes of the mootness analysis) that standing exists.
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs., 528 U.S.
167, 180, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000) (citation
omitted).
*30 Here, the Court finds that Plaintiffs’ claims are not
moot, as the claims Plaintiffs are proceeding with are “live.”
First, Plaintiffs’ claims are based on guidance that issued
after the primary election and are to be applied in the
upcoming general election. As such, the harms alleged are
not solely dependent on the already-passed primary election.
Second, Defendants, by and large, have made clear that
they intend to abide by guidance that Plaintiffs assert is
unlawful or unconstitutional. Third, Plaintiffs sufficiently
show that certain Defendants intend to engage in the conduct
(e.g., use unmanned drop-boxes) that Plaintiffs say infringes
their constitutional rights. Thus, these issues are presently
“live” and are not affected by the completion of the primary
election.7 Plaintiffs’ claims are not moot.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2008 Case 2:20-cv-01771-PP Filed 12/09/20 Page 27 of 63 Document 78-3

27

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

3. All named Defendants are necessary parties to this
lawsuit.
Many of the county boards of elections that are Defendants
in this case argue that the claims against them should be
dismissed because Plaintiffs did not specifically allege or
prove sufficient violative facts against them. Plaintiffs argue
in response that all county boards have been joined because
they are necessary parties, and the Court cannot afford relief
without their presence in this case. The Court agrees with
Plaintiffs, and declines to dismiss the county boards from the
case. They are necessary parties.
Federal Rule of Civil Procedure 19(a) states that a party is
a necessary party that must be joined in the lawsuit if, “in
that [party's] absence, the court cannot accord complete relief
among existing parties.” Fed. R. Civ. P. 19(a)(1)(A).
Here, if the county boards were not named defendants in
this case, the Court would not be able to provide Plaintiffs
complete relief should Plaintiffs prove their case. That's
because the Court could not enjoin the county boards if
they were not parties. See Fed. R. Civ. P. 65(d)(2).8 This is
important because each individual county board of elections
manages the electoral process within its county lines. As
one court previously summarized, “Election procedures and
processes are managed by each of the Commonwealth's sixtyseven counties. Each county has a board of elections, which
oversees the conduct of all elections within the county.”
Cortés, 218 F. Supp. 3d at 403 (citing 25 P.S. § 2641(a)). “The
county board of elections selects, fixes and at times alters the
polling locations of new election districts. Individual counties
are also tasked with the preservation of all ballots cast in that
county, and have the authority to investigate fraud and report
irregularities or any other issues to the district attorney[.]”
Id. (citing 25 P.S. §§ 2726, 2649, and 2642). The county
boards of elections may also make rules and regulations “as
they may deem necessary for the guidance of voting machine
custodians, elections officers and electors.” 25 P.S. § 2642(f).
*31 Indeed, Defendants’ own arguments suggest that they
must be joined in this case. As just one example, a handful
of counties assert in their summary-judgment brief that the
“[Election] Code permits Boards to exercise discretion in
certain areas when administering elections, to administer the
election in a manner that is both legally-compliant and meets
the unique needs of each County's citizens.” [ECF 518, p.
6]. Thus, because of each county's discretionary authority, if

county boards engage in unconstitutional conduct, the Court
would not be able to remedy the violation by enjoining only
Secretary Boockvar.9
To grant Plaintiffs relief, if warranted, the Court would need
to enter an order affecting all county boards of elections—
which the Court could not do if some county boards were
not joined in this case. Otherwise, the Court could only
enjoin violative conduct in some counties but not others.
As a result, inconsistent rules and procedures would be in
effect throughout the Commonwealth. While some counties
can pledge to follow orders issued by this Court, the judicial
system cannot rely on pledges and promises, regardless of
the county boards’ good intent. The only way to ensure that
any illegal or unconstitutional conduct is uniformly remedied,
permanently, is to include all county boards in this case.
Thus, because the county boards are necessary parties, the
Court cannot dismiss them.

4. Plaintiffs lack Article III standing to raise their claims
of vote dilution because they cannot establish a “concrete”
injury-in-fact.
While Plaintiffs can clear the foregoing procedural hurdles,
they cannot clear the final one—Article III standing.
Federal courts must determine that they have jurisdiction
before proceeding to the merits of any claim. Steel Co.
v. Citizens for Better Env't, 523 U.S. 83, 94-95, 118
S.Ct. 1003, 140 L.Ed.2d 210 (1998). Article III of the
Constitution limits the jurisdiction of federal courts to
“Cases” and “Controversies.” One component of the caseor-controversy requirement is standing, which requires a
plaintiff to demonstrate the now-familiar elements of (1)
injury in fact, (2) causation, and (3) redressability. See Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560–61, 112 S.Ct. 2130,
119 L.Ed.2d 351 (1992).
Standing is particularly important in the context of electionlaw cases, including a case like this one, that challenge
the laws, regulations, and guidance issued by elected and
appointed state officials through the democratic processes.
As the Supreme Court has explained, the standing “doctrine
developed in our case law to ensure that federal courts do not
exceed their authority as it has been traditionally understood.”
Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1547,
194 L.Ed.2d 635 (2016) (cleaned up). The doctrine “limits

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2009 Case 2:20-cv-01771-PP Filed 12/09/20 Page 28 of 63 Document 78-3

28

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

the category of litigants empowered to maintain a lawsuit
in federal court to seek redress for a legal wrong.” Id. In
this way, “Article III standing serves to prevent the judicial
process from being used to usurp the powers of the political
branches.” Id. Nowhere is that concern more acute than in a
case that challenges a state's exercise of its core constitutional
authority to regulate the most deeply political arena of all—
elections.
*32 Here, Defendants and Intervenors claim that Plaintiffs
lack standing, largely arguing that Plaintiffs’ injury is too
speculative. [ECF 547, pp. 43-50]. The Court agrees and finds
that Plaintiffs lack Article III standing for this reason.
Initially, to frame the standing inquiry, understanding the
specific claims at issue is important. As discussed above,
there are essentially three claims remaining in this case: (1)
a challenge to Secretary Boockvar's guidance that does not
require all drop boxes to have manned security personnel; (2)
a challenge to Secretary Boockvar's guidance that counties
should not perform a signature comparison for mail-in ballots;
and (3) a challenge to Pennsylvania's county-residency
restriction for poll-watchers. See [ECF 509, pp. 4-5]. The
theory behind all of these claims and the asserted injury is
one of vote dilution due to the heightened risk of fraud; that
is, without the above measures in place, there is an imminent
risk of voter fraud (primarily by mail-in voters); and if that
fraud occurs, it will dilute the votes of many of Plaintiffs,
who intend to vote in person in the upcoming election. [ECF
551, p. 12 (“As qualified electors who will be voting in the
November election, Plaintiffs will suffer an injury through
their non-equal treatment and/or the dilution or debasement
of their legitimately case votes by absentee and mail-in votes
that have not been properly verified by matching the voters’
signatures on their applications and ballots to the permanent
voter registration record and/or that have been improperly
delivered by others to drop boxes or other mobile collection
sites in manners that are different[ ] from those offered or
being used in their counties of residence.”) ].
Turning to the familiar elements of Article III standing,
the first and, in the Supreme Court's estimation, “foremost”
element—injury-in-fact—is dispositive. See Gill v. Whitford,
––– U.S. ––––, 138 S. Ct. 1916, 1929, 201 L.Ed.2d 313
(2018). Specifically, the Court finds that Plaintiffs’ theory of
vote dilution, based on the evidence presented, is insufficient
to establish standing because Plaintiffs’ injury-in-fact is not
sufficiently “concrete.”

With respect to injury-in-fact, the Supreme Court has made
clear that an injury must be “concrete” and “particularized.”
See Spokeo, 136 S. Ct. at 1548. Defendants argue that the
claimed injury of vote dilution caused by possible voter fraud
here is too speculative to be concrete. The Court agrees.
To establish a “concrete” injury, Plaintiffs rely on a chain
of theoretical events. They first argue that Defendants’ lack
of election safeguards (poll watchers, drop-box guards, and
signature-comparison procedures) creates a risk of voter fraud
or illegal voting. See [ECF 461, ¶¶ 230-31, 240, 256]. That
risk, they say, will lead to potential fraudsters committing
voter fraud or ballot destruction. [Id.]. And if that happens,
each vote cast in contravention of the Election Code will, in
Plaintiffs’ view, dilute Plaintiffs’ lawfully cast votes, resulting
in a constitutional violation.
The problem with this theory of harm is that this fraud hasn't
yet occurred, and there is insufficient evidence that the harm
is “certainly impending.”
To be clear, Plaintiffs need not establish actual fraud at
this stage; but they must establish that fraud is “certainly
impending,” and not just a “possible future injury.” See
Clapper, 568 U.S. at 409, 133 S.Ct. 1138 (“Thus, we have
repeatedly reiterated that threatened injury must be certainly
impending to constitute injury in fact, and that allegations of
possible future injury are not sufficient.”) (cleaned up).
*33 This case is well past the pleading stage. Extensive fact
and expert discovery are complete. [ECF 462]. Nearly 300
exhibits have been submitted on cross-motions for summary
judgment (including 68 by Plaintiffs alone). Plaintiffs bear
the burden of proof on this issue, and unlike on a motion
to dismiss, on summary judgment, they must come forward
with proof of injury, taken as true, that will prove standing,
including a concrete injury-in-fact. See Lujan, 504 U.S. at
561, 112 S.Ct. 2130 (1992) (“At the pleading stage, general
factual allegations of injury resulting from the defendant's
conduct may suffice ... In response to a summary judgment
motion, however, the plaintiff can no longer rest on such mere
allegations, but must set forth by affidavit or other evidence
specific facts ... which for purposes of the summary judgment
motion will be taken to be true.”) (cleaned up).
Based on the evidence presented by Plaintiffs, accepted as
true, Plaintiffs have only proven the “possibility of future
injury” based on a series of speculative events—which falls
short of the requirement to establish a concrete injury. For

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2010 Case 2:20-cv-01771-PP Filed 12/09/20 Page 29 of 63 Document 78-3

29

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

example, Plaintiffs’ expert, Mr. Riddlemoser, opines that the
use of “unstaffed or unmanned” drop boxes merely “increases
the possibility for voter fraud (and vote destruction)[.]” [ECF
504-19, p. 20 (emphasis added) ]. That's because, according
to him (and Plaintiffs’ other witnesses), theoretical bad
actors might intentionally “target” a drop box as the “easiest
opportunity for voter fraud” or with the malicious “intent
to destroy as many votes ... as possible.” [Id. at pp. 16-18;
see also ECF 504-2, ¶ 12 (declaring that drop boxes “may
serve as a target for bad actors that may wish to tamper
with lawfully case ballots before such ballots are counted”)
(emphasis added) ]. But there's no way of knowing whether
these independent actors will ever surface, and if they do,
whether they will act as Mr. Riddlemoser and Plaintiffs
predict.
Similarly, Mr. Riddlemoser concludes that, at most, not
conducting signature analysis for mail-in and absentee ballots
“open[s] the door to the potential for massive fraud through a
mechanism already susceptible to voter fraud.” [ECF 504-19,
p. 20].
This increased susceptibility to fraud and ballot destruction
is the impetus for Plaintiffs, in their various capacities, to
express their concerns that vote dilution might occur and
disrupt their right to a “free and fair election.” See, e.g.,
[504-3, ¶ 6; 504-4, ¶ 7; ECF 504-6, ¶¶ 6-8; ECF 504-7, ¶¶
5-9]. But these concerns, as outlined above, are based solely
on a chain of unknown events that may never come to pass.
In addition to Plaintiffs’ expert report, Plaintiffs’ evidence
consists of instances of voter fraud in the past, including an
article in the N.Y. Post purporting to detail the strategies of an
anonymous fraudster, as well as pointing to certain prior cases
of voter fraud and election irregularities (e.g., Philadelphia
inadvertently allowing 40 people to vote twice in the 2020
primary election; some counties counting ballots that did not
have a completed declaration in the 2020 primary election).
[ECF 461, ¶¶ 63-82; ECF 504-19, p. 3 & Ex. D]. Initially, with
one exception noted directly below, none of this evidence is
tied to individuals using drop boxes, submitting forged mailin ballots, or being unable to poll watch in another county
—and thus it is unclear how this can serve as evidence of
a concrete harm in the upcoming election as to the specific
claims in this case.
*34 Perhaps the best evidence Plaintiffs present are the
several photographs and video stills, which are depicted
above, and which are of individuals who appear to be

delivering more than one ballot to a drop box during the
primary election. It is undisputed that during the primary
election, some county boards believed it be appropriate to
allow voters to deliver ballots on behalf of third parties. [ECF
504-9, 92:4-10; ECF 504-10, 60:3-61:10; ECF 504-49].
But this evidence of past injury is also speculative. Initially,
the evidence is scant. But even assuming the evidence were
more substantial, it would still be speculative to find that
third-party ballot delivery will also occur in the general
election. It may; it may not. Indeed, it may be less likely
to occur now that the Secretary issued her September 28,
2020, guidance, which made clear to all county boards that for
the general election, third-party ballot delivery is prohibited.
[ECF 504-25 (“Third-person delivery of absentee or mail-in
ballots is not permitted, and any ballots delivered by someone
other than the voter are required to be set aside. The only
exceptions are voters with a disability, who have designated
in writing an agent to deliver their ballot for them.”) ]. It may
also be less likely to occur in light of the Secretary's other
guidance, which recommends that county boards place signs
near drop boxes, warning voters that third-party delivery is
prohibited.
It is difficult—and ultimately speculative—to predict future
injury from evidence of past injury. This is why the Supreme
Court has recognized that “[p]ast exposure to illegal conduct
does not in itself show a present case or controversy regarding
injunctive relief if unaccompanied by any continuing, present
adverse effects.” Lujan, 504 U.S. at 564, 112 S.Ct. 2130
(cleaned up).
In fact, based on Plaintiffs’ theory of harm in this case, it
is almost impossible for them to present anything other than
speculative evidence of injury. That is, they would have to
establish evidence of a certainly impending illegal practice
that is likely to be prevented by the precautions they seek.
All of this sounds in “possible future injury,” not “certainly
impending” injury. In that way, this case is very much like the
Supreme Court's decision in Clapper.
In Clapper, plaintiffs-respondents were attorneys, other
advocates, and media groups who communicated with clients
overseas whom they feared would be subject to government
surveillance under a FISA statute. 568 U.S. at 406, 133 S.Ct.
1138. The plaintiffs there alleged that the FISA statute at issue
created a risk of possible government surveillance, which
prevented them from communicating in confidence with their
clients and compelled them to travel overseas instead and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2011 Case 2:20-cv-01771-PP Filed 12/09/20 Page 30 of 63 Document 78-3

30

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

incur additional costs. Id. at 406-07, 133 S.Ct. 1138. Based
on these asserted injures, the plaintiffs filed suit, seeking to
invalidate provisions of FISA. Id. at 407, 133 S.Ct. 1138.
The Supreme Court held that plaintiffs there lacked standing
because their risk of harm was not concrete—rather, it was
attenuated and based on a series of speculative events that
may or may not ever occur. Id. at 410, 133 S.Ct. 1138
(finding that “respondents’ argument rests on their highly
speculative fear that: (1) the Government will decide to
target the communications of non-U.S. persons with whom
they communicate; (2) in doing so, the Government will
choose to invoke its authority under § 1881a rather than
utilizing another method of surveillance; (3) the Article III
judges who serve on the Foreign Intelligence Surveillance
Court will conclude that the Government's proposed
surveillance procedures satisfy § 1881a's many safeguards
and are consistent with the Fourth Amendment; (4) the
Government will succeed in intercepting the communications
of respondents’ contacts; and (5) respondents will be parties
to the particular communications that the Government
intercepts).
*35 In the end, the Court found that it would not “endorse
standing theories that rest on speculation about the decisions
of independent actors.” Id. at 414, 133 S.Ct. 1138.

Ct. at 1936 (Kagan, J., concurring). And a plaintiff can have
standing to bring a voter-fraud claim, but the proof of injury
there is evidence of actual fraud in the election and thus the
suit will be brought after the election has occurred. See, e.g.,
Marks v. Stinson, 19 F.3d 873 (3d Cir. 1994). But, at least
based on the evidence presented here, a claim of vote dilution
brought in advance of an election on the theory of the risk of
potential fraud fails to establish the requisite concrete injury
for purposes of Article III standing.
Plaintiffs advance three other theories of harm here, in order
to establish standing—none of which establish a concrete
injury-in-fact.
First, Plaintiffs assert that since some of them are Republican
candidates and that Republicans are more likely to vote in
person and Democrats more likely to vote by mail, that their
injury here is a competitive disadvantage in the electoral
process. [ECF 551, pp. 16-18 (“The challenged guidance will
further harm the RNC through the institutional prioritization
of voting by mail and the potential disenfranchisement of
Republican voters, who prefer to vote in person in the
upcoming General Election.”) ]. This too is a speculative,
non-concrete injury. There is nothing in the record to establish
that potential voter fraud and dilution will impact Republicans
more than Democrats.

All of this may occur and may result in some of Plaintiffs’
votes being diluted; but the question is whether these events
are “certainly impending.” The evidence outlined above and
presented by Plaintiffs simply fails to meet that standard.

*36 To be sure, the information that Plaintiffs present
shows that more Democrats are likely to use mail-in
ballots. [ECF 551, p. 31 (“[I]n Pennsylvania, of the 1.9
million absentee or mail-in ballots that have been requested
for the November 3, 2020 General Election, ‘nearly 1.5
million Democrats have requested a mail-in ballot—nearly
three times the requests from Republicans.’ ”) (quoting L.
Broadwater, “Both Parties Fret as More Democrats Request
Mail Ballots in Key States,” New York Times (Sept. 30,
2020), available at https://www nytimes.com/2020/09/30/
us/mail-voting-democrats-republicans-turnout html) ]. But it
doesn't necessarily follow that more Democrats will commit
voter fraud, such as through the destruction of drop boxes
or third-party ballot harvesting, and thus more Republicans’
votes will be diluted.

This is not to say that claims of vote dilution or voter
fraud never give rise to a concrete injury. A plaintiff can
have standing to bring a vote-dilution claim—typically, in a
malapportionment case—by putting forth statistical evidence
and computer simulations of dilution and establishing that
he or she is in a packed or cracked district. See Gill, 138 S.

In fact, as Plaintiffs’ expert, Mr. Riddlemoser, explains,
fraudsters from either party could target drop boxes in specific
areas in order to destroy ballots, depending on who may be
the predominant party in the area. [ECF 504-19, at pp. 17-18
(“In short, nothing would prevent someone from intentionally
targeting a drop box in a predominantly Republican or

Like Clapper, here, Plaintiffs’ theory of harm rests on
speculation about the decisions of independent actors.
For drop boxes, that speculation includes that unknown
individuals will utilize drop boxes to commit fraud or other
illegal activity; for signature comparison, that fraudsters will
submit forged ballots by mail; for poll watchers, that illegal
votes will not be sufficiently challenged; and for all these
claims, that other security measures in place to monitor drop
boxes, to verify ballot information, and to challenge ballots
will not work.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2012 Case 2:20-cv-01771-PP Filed 12/09/20 Page 31 of 63 Document 78-3

31

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

predominantly Democratic area with an intent to destroy as
many votes for that political party or that party's candidate(s)
as possible.”) ]. Indeed, the more important fact for this theory
of harm is not the party of the voter, but the party of the
fraudster—and, on this, Plaintiffs present no evidence that one
party over the other is likely to commit voter fraud.
Second, Plaintiffs also argue that the RNC, the Congressional
Plaintiffs, and the Trump Campaign have organizational
standing because they “have and will continue to devote
their time and resources to ensure that their Pennsylvania
supporters, who might otherwise be discouraged by the
Secretary's guidance memos favoring mail-in and absentee
voting and Defendants’ implementation thereof, get out to the
polls and vote on Election Day.” [ECF 551, p. 19]. This is
a similar argument raised by the plaintiffs in Clapper, and
rejected there by the Supreme Court. Because Plaintiffs’ harm
is not “certainly impending,” as discussed above, spending
money in response to that speculative harm cannot establish
a concrete injury. Clapper, 568 U.S. at 416, 133 S.Ct. 1138
(“Respondents’ contention that they have standing because
they incurred certain costs as a reasonable reaction to a risk
of harm is unavailing—because the harm respondents seek to
avoid is not certainly impending. In other words, respondents
cannot manufacture standing merely by inflicting harm on
themselves based on their fears of hypothetical future harm
that is not certainly impending.”); see also Donald J. Trump
for President, Inc. v. Cegavske, ––– F. Supp. 3d ––––, ––––,
2020 WL 5626974, at *5 (D. Nev. Sept. 18, 2020) (“Outside
of stating ‘confusion’ and ‘discouragement’ in a conclusory
manner, plaintiffs make no indication of how AB 4 will
discourage their member voters from voting. If plaintiffs
did not expend any resources on educating their voters on
AB4, their voters would proceed to vote in-person as they
overwhelmingly have in prior elections.”).
Third, with respect to the poll-watching claim, Plaintiffs
argue that at least one of the Plaintiffs, Ms. Patterson, is a
prospective poll watcher who is being denied the right to
poll watch based on the county-residency restriction, and
thus she meets the Article III requirements. [ECF 551, p. 34
(citing ECF 551-3, ¶¶ 9-10) ]. However, Ms. Patterson cannot
establish standing because, by Plaintiffs’ own concession, the
theory of harm in this case is not the denial of the right to poll
watch, but instead dilution of votes from fraud caused from
the failure to have sufficient poll watchers. [ECF 509, p. 67
(“But, the core of the as-applied challenge here is not that the
Plaintiffs cannot staff a particular polling place, it is that a
candidate and his or her party is presented with the Hobson's

choice of selecting limited polling places to observe due to
the residency requirement and accept that unobserved polling
places must exist due to the inability to recruit a sufficient
force of poll watchers due to the necessity that candidates be
county residents.”) ].
*37 And the remedy sought here is much broader than
simply allowing Ms. Patterson to poll watch in a certain
county, but is tied to the broader harm of vote dilution that
Plaintiffs assert. [ECF 503-1, p. 3, ¶ 3 (“Plaintiffs shall be
permitted to have watchers present at all locations where
voters are registering to vote, applying for absentee or mailin ballots, voting absentee or mail-in ballots, and/or returning
or collecting absentee or mail-in ballots, including without
limitation any satellite or early voting sites established by any
county board of elections.”) ]. Standing is measured based on
the theory of harm and the specific relief requested. See Gill,
138 S. Ct. at 1934 (“We caution, however, that ‘standing is
not dispensed in gross’: A plaintiff's remedy must be tailored
to redress the plaintiff's particular injury.”). As with all of
the claims, the poll-watching claim rests on evidence of vote
dilution that does not rise to the level of a concrete harm.
In sum, Plaintiffs here, based on the evidence presented, lack
Article III standing to assert their claims. Because they lack
standing, the Court will enter judgment in Defendants’ favor
and dismiss all claims.10 However, because of the novelty
of Plaintiffs’ claims and theories, a potential appeal in this
case, and the short time before the general election, out of
an abundance of caution, the Court will, in the alternative,
proceed to examine the claims on the merits.
II. Defendants and Intervenors are entitled to summary
judgment on Plaintiffs’ claim that drop boxes violate the
U.S. Constitution.
Plaintiffs’ drop-box claim has materially changed since
the Pennsylvania Supreme Court's decision authorizing the
use of drop boxes. Plaintiffs now allege that drop boxes
effectively allow third parties to return the ballots of voters
other than themselves because, they say, no one is there
to stop them. Absent an in-person guard or poll worker to
monitor the drop boxes and prevent the return of ballots cast
in a manner contrary to what the Election Code permits,
Plaintiffs assert that they face an unacceptable risk of vote
dilution, which burdens their right to vote. Plaintiffs also
argue that the “uneven” use of drop boxes in Pennsylvania,
by some counties but not others, violates equal protection by
subjecting voters in different counties to different amounts

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2013 Case 2:20-cv-01771-PP Filed 12/09/20 Page 32 of 63 Document 78-3

32

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

of dilutive risk, and perhaps by diluting lawful votes cast by
individuals who failed to comply with the Election Code.
The evidence relevant to these claims is undisputed. See [ECF
509, p. 45 (“After the completion of extensive discovery,
including numerous depositions and responses to discovery
requests, no genuine dispute of material fact exists regarding
Plaintiffs’ constitutional claims.”) ]. Viewed in the light most
favorable to Plaintiffs, the Court could conclude from this
evidence, and will assume for purposes of this decision, that
(1) drop boxes allow for greater risk of third-party ballot
delivery in violation of the Election Code than in-person
polling locations or manned drop boxes, and (2) that the use
of drop boxes is “uneven” across Pennsylvania due to its
county-based election system—i.e., some counties are using
“unmanned” drop boxes with varying security measures,
some are using “manned” drop boxes, some are using dozens
of drop boxes in a variety of locations, some are using one
drop box in a county office building, and some are not using
drop boxes at all. The question before the Court is whether
this state of affairs violates equal protection or due process.
*38 The Court finds that it does not. The uneven use of
drop boxes across counties does not produce dilution as
between voters in different counties, or between “lawful” and
“unlawful” voters, and therefore does not present an equalprotection violation. But even if it did, the guidelines provided
by Secretary Boockvar are rational, and weighing the relative
burdens and benefits, the Commonwealth's interests here
outweigh any burden on Plaintiffs’ right to vote.
A. Pennsylvania's “uneven” use of drop boxes does not
violate federal equal-protection rights.
Plaintiffs’ primary claim concerns the uneven use of drop
boxes across the Commonwealth, which they contend violates
the Equal-Protection Clause of the 14th Amendment.
The 14th Amendment's Equal-Protection Clause commands
that “no State shall ... deny to any person within its jurisdiction
the equal protection of laws.” U.S. Const. amend. XIV, § 1.
This broad and simple promise is “an essential part of the
concept of a government of laws and not men.” Reynolds
v. Sims, 377 U.S. 533, 568, 84 S.Ct. 1362, 12 L.Ed.2d 506
(1964).
But while the Constitution demands equal protection, that
does not mean all forms of differential treatment are
forbidden. See Nordlinger v. Hahn, 505 U.S. 1, 10, 112
S.Ct. 2326, 120 L.Ed.2d 1 (1992) (“Of course, most laws

differentiate in some fashion between classes of persons. The
Equal Protection Clause does not forbid classifications.”).
Instead, equal protection “simply keeps governmental
decisionmakers from treating differently persons who are
in all relevant respects alike.” Id. (citation omitted). What's
more, “unless a classification warrants some form of
heightened review because it jeopardizes exercise of a
fundamental right or categorizes on the basis of an inherently
suspect characteristic, the Equal Protection Clause requires
only that the classification rationally further a legitimate state
interest.” Id. (citations omitted).
Of course, the right of every citizen to vote is a fundamental
right. See Ill. State Bd. of Elections v. Socialist Workers Party,
440 U.S. 173, 184, 99 S.Ct. 983, 59 L.Ed.2d 230 (1979)
(“[F]or reasons too self-evident to warrant amplification here,
we have often reiterated that voting is of the most fundamental
significance under our constitutional structure.”) (citations
omitted). Indeed, it is a foundational right “that helps to
preserve all other rights.” Werme v. Merrill, 84 F.3d 479, 483
(1st Cir. 1996); Wesberry v. Sanders, 376 U.S. 1, 17, 84 S.Ct.
526, 11 L.Ed.2d 481 (1964) (“Other rights, even the most
basic, are illusory if the right to vote is undermined.”). And
its scope is broad enough to encompass not only the right of
each voter to cast a ballot, but also the right to have those
votes “counted without dilution as compared to the votes of
others.” Minn. Voters Alliance v. Ritchie, 720 F.3d 1029, 1031
(8th Cir. 2013) (cleaned up).
As a result, Plaintiffs are quite correct when they suggest
that a state election procedure that burdens the right to
vote, including by diluting the value of votes compared to
others, must “comport with equal protection and all other
constitutional requirements.” Cortés, 218 F. Supp. 3d at 407.
That much, at least, is not in dispute.
At the same time, however, the Constitution “confers on the
states broad authority to regulate the conduct of elections,
including federal ones.” Griffin v. Roupas, 385 F.3d 1128,
1130 (7th Cir. 2004) (citing U.S. Const. Art. I, § 4, cl. 1). This
authority includes “broad powers to determine the conditions
under which the right of suffrage may be exercised.” Shelby
Cnty., Ala. v. Holder, 570 U.S. 529, 543, 133 S.Ct. 2612,
186 L.Ed.2d 651 (2013) (cleaned up). Indeed, “[c]ommon
sense, as well as constitutional law, compels the conclusion”
that states must be free to engage in “substantial regulation
of elections” if “some sort of order, rather than chaos, is to
accompany the democratic processes.” Burdick v. Takushi,
504 U.S. 428, 433, 112 S.Ct. 2059, 119 L.Ed.2d 245 (1992)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2014 Case 2:20-cv-01771-PP Filed 12/09/20 Page 33 of 63 Document 78-3

33

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

(cleaned up). And all “[e]lection laws will invariably impose
some burden upon individual voters.” Id.
*39 If the courts were “to subject every voting regulation to
strict scrutiny and to require that the regulation be narrowly
tailored to advance a compelling state interest,” it “would
tie the hands of States seeking to assure that elections are
operated equitably and efficiently.” Id. The “machinery of
government would not work if it were not allowed a little
play in its joints.” Bain Peanut Co. of Tex. v. Pinson,
282 U.S. 499, 501, 51 S.Ct. 228, 75 L.Ed. 482 (1931).
Thus, when faced with a constitutional challenge to a state
election law, or to the actions of state officials responsible
for regulating elections, a federal court must weigh these
competing constitutional considerations and “make the ‘hard
judgment’ that our adversary system demands.” Crawford v.
Marion Cnty. Election Bd., 553 U.S. 181, 190, 128 S.Ct. 1610,
170 L.Ed.2d 574 (2008).
The Supreme Court has supplied lower courts guidance
as to how to make these hard judgments, by “forg[ing]”
the “flexible standard” for assessing the constitutionality
of election regulations into “something resembling an
administrable rule.” Id. at 205, 128 S.Ct. 1610 (Scalia, J.
concurring) (citing Burdick, 504 U.S. at 434, 112 S.Ct. 2059).
Under this standard, first articulated in Anderson v.
Celebrezze, 460 U.S. 780, 103 S.Ct. 1564, 75 L.Ed.2d 547
(1983) and then refined in Burdick, the fact “[t]hat a law or
state action imposes some burden on the right to vote does
not make it subject to strict scrutiny.” Donatelli v. Mitchell,
2 F.3d 508, 513 (3d Cir. 1993); see also Libertarian Party
of Ohio v. Blackwell, 462 F.3d 579, 585 (6th Cir. 2006)
(“[V]oting regulations are not automatically subjected to
heightened scrutiny.”). Instead, any “law respecting the right
to vote—whether it governs voter qualifications, candidate
selection, or the voting process,” is subjected to “a deferential
‘important regulatory interests’ standard for nonsevere,
nondiscriminatory restrictions, reserving strict scrutiny for
laws that severely restrict the right to vote.” Crawford, 553
U.S. at 204, 128 S.Ct. 1610 (Scalia, J. concurring).
In practice, this means that courts must weigh the “character
and magnitude of the burden the State's rule imposes” on
the right to vote “against the interests the State contends
justify that burden, and consider the extent to which the
State's concerns make that burden necessary.” Timmons v.
Twin Cities Area New Party, 520 U.S. 351, 358, 117 S.Ct.
1364, 137 L.Ed.2d 589 (1997) (cleaned up). If the state

imposes a “severe” burden on the right to vote, strict scrutiny
applies—the rule may survive only if it is “narrowly tailored”
and only if the state advances a “compelling interest.” Id.
But if the state imposes only “reasonable, nondiscriminatory
restrictions,” its “important regulatory interests will usually
be enough” to justify it. Id. Indeed, where state regulations
are “minimally burdensome and nondiscriminatory” a level
of scrutiny “closer to rational basis applies[.]” Ohio Council
8 Am. Fed'n of State v. Husted, 814 F.3d 329, 335 (6th Cir.
2016). And where the state imposes no burden on the “right
to vote” at all, true rational basis review applies. See Biener
v. Calio, 361 F.3d 206, 215 (3d Cir. 2004) (“Biener also
cannot establish an infringement on the fundamental right to
vote ... As the [election] filing fee does not infringe upon
a fundamental right, nor is Biener in a suspect class, we
consider the claims under a rational basis test.”) (citation
omitted); Common Cause/New York v. Brehm, 432 F. Supp. 3d
285, 310 (S.D.N.Y. 2020) (“Under this framework, election
laws that impose no burden on the right to vote are subject to
rational-basis review.”).
*40 This operates as a “sliding scale”—the “more severe
the burden imposed, the more exacting our scrutiny; the less
severe, the more relaxed our scrutiny.” Arizona Libertarian
Party v. Hobbs, 925 F.3d 1085, 1090 (9th Cir. 2019); see
also Fish v. Schwab, 957 F.3d 1105, 1124 (10th Cir. 2020)
(“We, and our sister circuits and commentators, have referred
to this as a ‘sliding scale’ test.”); Libertarian Party of New
Hampshire v. Gardner, 638 F.3d 6, 14 (1st Cir. 2011) (“We
review all of the First and Fourteenth Amendment claims
under the sliding scale approach announced by the Supreme
Court in Anderson ... and Burdick[.]”); Burdick, 504 U.S. at
434, 112 S.Ct. 2059 (“[T]he rigorousness of our inquiry into
the propriety of a state election law depends upon the extent
to which a challenged regulation burdens First and Fourteenth
Amendment rights.”).
Against that backdrop, the Court now turns to Plaintiffs’ claim
that the use of unmanned drop boxes by some Pennsylvania
counties, but not others, violates equal protection. As will
be discussed, Plaintiffs’ equal-protection claim fails at the
threshold, without even reaching Anderson-Burdick, because
Plaintiffs have not alleged or shown that Pennsylvania's
system will result in the dilution of votes in certain counties
and not others. Furthermore, even if the Court applies
Anderson-Burdick, the attenuated “burden” Plaintiffs have
identified—an increased risk of vote dilution created by
the use of unmanned drop boxes—is more than justified

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2015 Case 2:20-cv-01771-PP Filed 12/09/20 Page 34 of 63 Document 78-3

34

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

by Defendants’ important and precise interests in regulating
elections.

1. Plaintiffs have not shown that Pennsylvania treats
equivalent votes in different counties differently.
Plaintiffs’ equal-protection claim asserts differential
treatment on a theory of vote dilution. As far as the Court can
discern, this claim has two dimensions.
First, the main thrust concerns differential treatment as
between counties. Plaintiffs assert that some counties will
use drop boxes in certain ways (specifically, without inperson guards or in varying number and locations), while
others will not—resulting in differential treatment. See,
e.g., [ECF 551, p. 44 (“Plaintiffs assert (and have proven)
that Defendants have adopted, and intend to implement
in the General Election, an election regime that applies
Pennsylvania's Election Code in a way that treats the citizens
of Pennsylvania unequally depending on ... the location
where they happen to live: in some counties, voters will
have around-the-clock access to ‘satellite election offices’
at which they can deposit their vote, but in other counties,
voters will have no access at all to such drop boxes; in some
counties those drop boxes will be staffed and secure, but in
other counties drop boxes will be unmonitored and open to
tampering[.]”) ]; [Id. at p. 46 (“Defendants’ ongoing actions
and stated intentions ensure that votes will not be counted the
same as those voting in other counties, and in some instances,
in the same Congressional district. For instance, the harm
flowing from those actions will fall disproportionately on
the Republican candidates that bring suit here because many
Democrat-heavy counties have stated intentions to implement
the Secretary's unconstitutional ... ballot collection guidance,
and many Republican-heavy counties have stated intentions
to follow the Election Code as it is written.”) ].
*41 Second, although less clear, Plaintiffs’ equal-protection
claim may also concern broader differential treatment
between law-abiders and scofflaws. In other words, Plaintiffs
appear to suggest that Pennsylvania discriminates against all
law-abiding voters by adopting policies which tolerate an
unacceptable risk of a lawfully cast votes being diluted by
each unlawfully cast vote anywhere in Pennsylvania. See,
e.g., [ECF 509, p. 55 (“The use of unstaffed drop boxes ...
not only dilutes the weight of all qualified Pennsylvanian
electors, it curtails a sense of security in the voting process.”)
(emphasis in original) ]; [ECF 509 p. 68 (“There will be no

protection of one-person, one-vote in Pennsylvania, because
her policies ... allowing inconsistently located/used drop
boxes will result in illegal ballots being cast and counted with
legitimate votes[.]”) ].
As discussed below, both of these species of equal protection
fail because there is, in fact, no differential treatment here—
a necessary predicate for an equal-protection claim.
Initially, Plaintiffs “have to identify a burden before we
can weigh it.” Crawford, 553 U.S. at 205, 128 S.Ct. 1610
(Scalia, J. concurring). In the equal-protection context, this
means the plaintiff “must present evidence that s/he has been
treated differently from persons who are similarly situated.”
Renchenski v. Williams, 622 F.3d 315, 337 (3d Cir. 2010)
(cleaned up). And not just any differential treatment will
do. As discussed above, differences in treatment raise equalprotection concerns, and necessitate heightened scrutiny of
governmental interests, only if they burden a fundamental
right (such as the right to vote) or involve a suspect
classification based on a protected class. See Obama for Am.
v. Husted, 697 F.3d 423, 429 (6th Cir. 2012) (“If a plaintiff
alleges only that a state treated him or her differently than
similarly situated voters, without a corresponding burden on
the fundamental right to vote, a straightforward rational basis
standard of review should be used.”).
Plaintiffs argue that equal protection is implicated because
Pennsylvania has permitted counties to use drop boxes to
varying extents, and with varying degrees of security. Some,
like Delaware County, intend to use dozens of drop boxes.
See generally [ECF 549-28]. Many others will not use drop
boxes at all. See generally [ECF 504-1]. And among the
counties that do use drop boxes, some will staff them with
county officials, while others will monitor them only with
video surveillance or not at all. See generally [ECF 549-28].
In this respect, Plaintiffs argue that they suffer an equalprotection harm similar to that found by the Supreme Court
in Bush v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148 L.Ed.2d
388 (2000). There, the Supreme Court held that the Florida
Supreme Court violated equal protection when it “ratified”
election recount procedures that allowed different counties to
use “varying standards to determine what was a legal vote.”
Id. at 107, 121 S.Ct. 525. This meant that entirely equivalent
votes might be counted in one county but discounted
in another. See, e.g., id. (“Broward County used a more
forgiving standard than Palm Beach County, and uncovered
almost three times as many new votes, a result markedly

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2016 Case 2:20-cv-01771-PP Filed 12/09/20 Page 35 of 63 Document 78-3

35

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

disproportionate to the difference in population between
the counties.”). Given the absence of uniform, statewide
rules or standards to determine which votes counted, the
Court concluded that the patchwork recount scheme failed to
“satisfy the minimum requirement for nonarbitrary treatment
of voters necessary to secure the fundamental right [to vote].”
Id.
*42 While the Supreme Court expressly limited its holding
in Bush “to the present circumstances” of a standardless
“statewide recount under the authority of a single state judicial
officer,” id. at 109, 121 S.Ct. 525, a few courts have found
its reasoning to be persuasive as a broader principle of equal
protection. See Stewart v. Blackwell, 444 F.3d 843, 859 (6th
Cir. 2006) (“Somewhat more recently decided is Bush v.
Gore, ... which reiterated long established Equal Protection
principles.”); Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d
580, 598 (6th Cir. 2012) (“We agree with all of the parties
and the district court that the consent decree likely violates
the equal protection principle recognized in Bush v. Gore.”);
Pierce v. Allegheny Cty. Bd. of Elections, 324 F. Supp. 2d 684,
705 (W.D. Pa. 2003) (Conti, J.) (“As noted above, the court
finds that the facts presented raise a serious equal protection
claim under a theory similar to that espoused by the United
States Supreme Court in Bush v. Gore, supra.”); Black v.
McGuffage, 209 F. Supp. 2d 889, 899 (N.D. Ill. 2002) (“The
Court is certainly mindful of the limited holding of Bush.
However, we believe that situation presented by this case is
sufficiently related to the situation presented in Bush that the
holding should be the same.”).
Indeed, Bush’s core proposition—that a state may not take
the votes of two voters, similarly situated in all respects,
and, for no good reason, count the vote of one but not the
other—seems uncontroversial. It also seems reasonable (or at
least defensible) that this proposition should be extended to
situations where a state takes two equivalent votes and, for no
good reason, adopts procedures that greatly increase the risk
that one of them will not be counted—or perhaps gives more
weight to one over the other. See, e.g., Black, 209 F. Supp.
2d at 899 (“Plaintiffs in this case allege that the resulting
vote dilution, which was found to be unacceptable in Bush
without any evidence of a disproportionate impact on any
group delineated by traditional suspect criteria, is impacting
African American and Hispanic groups disproportionately....
Any voting system that arbitrarily and unnecessarily values
some votes over others cannot be constitutional.”); see also
Reynolds, 377 U.S. at 555, 84 S.Ct. 1362 (“[T]he right of
suffrage can be denied by a debasement or dilution of the

weight of a citizen's vote just as effectively as by wholly
prohibiting the free exercise of the franchise.”).
That is the sort of equal-protection claim Plaintiffs purport
to be asserting—a claim that voters in counties that use drop
boxes are subjected to a much higher risk of vote dilution than
those in other counties that do not. But that characterization
falls apart under scrutiny. Indeed, despite their assertions,
Plaintiffs have not actually alleged, let alone proven, that
votes cast in some counties are diluted by a greater amount
relative to votes cast in others. Rather, they have, at best,
shown only that events causing dilution are more likely to
occur in counties that use drop boxes. But, importantly, the
effect of those events will, by Plaintiffs’ own admission, be
felt by every voter across all of Pennsylvania. [ECF 509, p.
55. (“The use of unstaffed drop boxes places the security of
unknown hundreds (if not thousands) of ballots in jeopardy
of theft, destruction, and manipulation. This not only dilutes
the weight of all qualified Pennsylvanian electors, it curtails
a sense of security in the voting process.”) (citations omitted)
(emphasis in original) ]. Such dilution impacts the entire
electorate equally; not just voters in the county where it
occurs.
To illustrate this distinction, consider, for example, a
presidential election. The Court agrees with Plaintiffs that
the relevant electoral unit in such an election is “the entire
Commonwealth of Pennsylvania.” [ECF 551, p. 55 (“The
electoral unit in this election is the entire Commonwealth
of Pennsylvania.”) ]. Indeed, on election night, votes cast
in each of Pennsylvania's 67 counties will be canvassed,
counted, and ultimately added to a statewide vote total that
decides who wins Pennsylvania's 20 electoral votes. So, ask:
what is the dilutive impact of a hypothetical illegal vote cast
in Philadelphia during that election? Does it cause, in any
sense, an “unequal evaluation of ballots” cast in different
counties, Bush, 531 U.S. at 106, 121 S.Ct. 525, such that
lawful ballots cast in Philadelphia will be less likely to count,
worth less if they do, or otherwise disfavored when compared
to votes cast in other counties? The answer is evident—it does
not. Rather, the hypothetical illegal vote cast in Philadelphia
dilutes all lawful votes cast in the election anywhere in the
Commonwealth by the exact same amount.
*43 The same reasoning holds in elections that occur within
part of a state, rather than statewide. For example, consider
a hypothetical legislative district covering two counties—one
that uses drop boxes and one that does not. There may well be
a greater risk that illegal voting will occur in the county that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2017 Case 2:20-cv-01771-PP Filed 12/09/20 Page 36 of 63 Document 78-3

36

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

uses drop boxes. But any dilutive impact of those votes will
be felt equally by voters in both counties.
This is categorically different from the harm at issue in
Bush and cases like it. In Bush, Florida's arbitrary use of
different recount standards in different counties meant that the
state was counting equivalent ballots differently in different
counties, meaning that voters in some counties were more
likely to have their votes counted than those in others.
In Black v. McGuffage, an Illinois district-court case on
which Plaintiffs heavily rely, the plaintiffs alleged that the
type of voting machines used in some Illinois counties were
statistically much more likely to result in equivalent votes
being discounted at a much higher frequency in some counties
than others, and that the worst machines were those being
used in counties with high populations of minority groups.
209 F. Supp. 2d at 899. As a result, voters (and, specifically,
minority voters) were much more likely to have their votes
discounted, based just on the county in which they lived.
See id. (“As a result, voters in some counties are statistically
less likely to have their votes counted than voters in other
counties in the same state in the same election for the same
office. Similarly situated persons are treated differently in
an arbitrary manner.... In addition, the Plaintiffs in this case
allege that the resulting vote dilution ... is impacting African
American and Hispanic groups disproportionately.”).
Finally, Stewart v. Blackwell, another case cited by Plaintiffs,
was the same as Black—voters in counties that used punchcard voting were “approximately four times as likely not to
have their votes counted” as a voter in a different county
“using reliable electronic voting equipment.” 444 F.3d at 848.
What ties these cases together is that each of them involves
a state arbitrarily “valu[ing] one person's vote over that
of another,” Bush, 531 U.S. at 104-05, 121 S.Ct. 525,
by permitting counties to either apply different standards
to decide what votes count (Bush) or use different voting
technologies that create a great risk of votes being discounted
in one county that does not exist in others (Black and Stewart).
It is this sort of “differential treatment ... burden[ing] a
fundamental right” that forms the bedrock of equal protection.
Sullivan v. Benningfield, 920 F.3d 401, 409 (6th Cir. 2019).
Plaintiffs, in contrast, have shown no constitutionally
significant differential treatment at all.

Instead, as discussed, if Plaintiffs are correct that the use of
drop boxes increases the risk of vote dilution, all votes in the
relevant electoral unit—whether that is statewide, a subset
of the state, or a single county—face the same degree of
increased risk and dilution, regardless of which county is most
at fault for elevating that risk.
What Plaintiffs have really identified, then, are not uneven
risks of vote dilution—affecting voters in some counties
more than equivalent voters in others—but merely different
voting procedures in different counties that may contribute
different amounts of vote dilution distributed equally across
the electorate as a whole. The Court finds that this is not an
equal-protection issue.
*44 To be clear, the reason that there is no differential
treatment is solely based on Plaintiffs’ theory of harm in
this case. In the more “routine” vote-dilution cases, the state
imposes some restriction or direct impact on the plaintiff's
right to vote—that results in his or her vote being weighed
less (i.e., diluted) compared to those in other counties or
election districts. See Gill, 138 S. Ct. at 1930, (explaining that
“the holdings in Baker and Reynolds were expressly premised
on the understanding that the injuries giving rise to those
claims were individual and personal in nature, because the
claims were brought by voters who alleged facts showing
disadvantage to themselves as individuals”) (cleaned up). In
this case, though, Plaintiffs complain that the state is not
imposing a restriction on someone else's right to vote, which,
they say, raises the risk of fraud, which, if it occurs, could
dilute the value of Plaintiffs’ vote. The consequence of this
inverted theory of vote dilution is that all other votes are
diluted in the same way; all feel the same effect.
Finally, the Court's ruling in this regard is consistent with
the many courts that have recognized that counties may,
consistent with equal protection, employ entirely different
election procedures and voting systems within a single state.
See, e.g., Wexler v. Anderson, 452 F.3d 1226, 1231-33 (11th
Cir. 2006) (“Plaintiffs do not contend that equal protection
requires a state to employ a single kind of voting system
throughout the state. Indeed, local variety in voting systems
can be justified by concerns about cost, the potential value
of innovation, and so on.”) (cleaned up); Hendon v. N.C.
State Bd. of Elections, 710 F.2d 177, 181 (4th Cir. 1983)
(“A state may employ diverse methods of voting, and the
methods by which a voter casts his vote may vary throughout
the state.”); Short v. Brown, 893 F.3d 671, 679 (9th Cir.
2018) (“[T]he appellants’ reading of the Supreme Court's

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2018 Case 2:20-cv-01771-PP Filed 12/09/20 Page 37 of 63 Document 78-3

37

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

voting cases would essentially bar a state from implementing
any pilot program to increase voter turnout. Under their
theory, unless California foists a new system on all fiftyeight counties at once, it creates ‘unconstitutional votedilution’ in counties that do not participate in the pilot
plan. Nothing in the Constitution, the Supreme Court's
controlling precedent, or our case law suggests that we can
micromanage a state's election process to this degree.”); Fla.
State Conference of N.A.A.C.P. v. Browning, 569 F. Supp.
2d 1237, 1258 (N.D. Fla. 2008) (“[A]s with countless public
services delivered through Florida's political subdivisions—
such as law enforcement and education—resource disparities
are to some degree inevitable. They are not, however,
unconstitutional.”); Green Party of State of New York v.
Weiner, 216 F. Supp. 2d 176, 192 (S.D.N.Y. 2002) (“Even
in that situation, [Bush v. Gore] did not challenge, and
the Court did not question, the use of entirely different
technologies of voting in different parts of the state, even
in the same election.”); Paher v. Cegavske, No. 20-243,
2020 WL 2748301, at *9 (D. Nev. May 27, 2020) (“[I]t
cannot be contested that Clark County, which contains most
of Nevada's population—and likewise voters (69% of all
registered voters [ ] )—is differently situated than other
counties. Acknowledging this as a matter of generally known
(or judicially noticeable) fact and commonsense makes it
more than rational for Clark County to provide additional
accommodations to assist eligible voters.”); Ron Barber for
Cong. v. Bennett, No. 14-2489, 2014 WL 6694451, at *5 (D.
Ariz. Nov. 27, 2014) (“[T]he [Bush v. Gore] Court did not
invalidate different county systems regarding implementation
of election procedures.”); Tex. Democratic Party v. Williams,
No. 07-115, 2007 WL 9710211, at n.4 (W.D. Tex. Aug. 16,
2007) (“In Bush v. Gore, the Supreme Court specifically
noted: ‘The question before the Court is not whether local
entities, in the exercise of their expertise, may develop
different systems for implementing elections.’ ”).
*45 Equal protection does not demand the imposition of
“mechanical compartments of law all exactly alike.” Jackman
v. Rosenbaum Co., 260 U.S. 22, 31, 43 S.Ct. 9, 67 L.Ed. 107
(1922). Rather, “the Constitution is sufficiently flexible to
permit its requirements to be considered in relation to the ...
contexts in which they are invoked.” Merchants Nat'l Bank of
Mobile v. Dredge Gen. G. L. Gillespie, 663 F.2d 1338, 1343
(5th Cir. 1981). And in this context, “few (if any) electoral
systems could survive constitutional scrutiny if the use of
different voting mechanisms by counties offended the Equal
Protection Clause.” Trump v. Bullock, ––– F.3d ––––, ––––,
2020 WL 5810556, at *14 (D. Mont. Sept. 30, 2020).

The distinction—between differences in county election
procedures and differences in the treatment of votes or voters
between counties—is reflected in Bush itself. There, the
Supreme Court took pains to clarify that the question before
it was “not whether local entities, in the exercise of their
expertise, may develop different systems for implementing
elections.” Bush, 531 U.S. at 109, 121 S.Ct. 525; see also
id. at 134, 121 S.Ct. 525 (Souter, J. dissenting) (“It is true
that the Equal Protection Clause does not forbid the use of
a variety of voting mechanisms within a jurisdiction, even
though different mechanisms will have different levels of
effectiveness in recording voters’ intentions; local variety can
be justified by concerns about cost, the potential value of
innovation, and so on.”); Bullock, ––– F.3d at ––––, 2020 WL
5810556, at *14 (“[T]he Supreme Court was clear in Bush v.
Gore that the question was not whether local entities, in the
exercise of their expertise, may develop different systems for
implementing elections.”) (cleaned up).
Thus, coming back to the theory of Plaintiffs’ case, Plaintiffs
contend that Secretary Boockvar's drop-box guidance will
result in differences between counties and differing risks of
fraud. But the result of that uneven implementation will not
be votes in certain counties being valued less than others.
And the result won't be that voters who vote in person will
have their votes valued less, either. Instead, if Plaintiffs are
right, any unlawful votes will dilute all other lawful votes in
the same way. While certainly voter fraud and illegal voting
are bad, as a matter of equal protection, there is no unequal
treatment here, and thus no burden on Plaintiffs’ rights under
the Equal Protection Clause.
In addition to their equal-protection claim based on county
differences, Plaintiffs also appear to allude to a more
general type of equal-protection violation. They assert that
Pennsylvania comprises a single election unit. [ECF 551,
p. 55 (“The electoral unit in this election is the entire
Commonwealth of Pennsylvania.”) ]. They assert that they
intend to cast their ballots lawfully. See, e.g., [ECF 504-3,
¶ 4 (“As a Pennsylvania qualified registered elector, I have
always voted in-person at primary and general elections, and
I intend to vote in-person at the upcoming November 3, 2020
General Election.”) ]. And they assert that unmanned drop
boxes across the Commonwealth (regardless of the county)
will, on a statewide basis, dilute their votes. See, e.g., [id.
at ¶ 6 (“As a Pennsylvania qualified registered elector who
votes in-person, I do not want my in-person vote diluted
or cancelled by votes that are cast in a manner contrary

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2019 Case 2:20-cv-01771-PP Filed 12/09/20 Page 38 of 63 Document 78-3

38

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

to the requirements enacted by the Pennsylvania General
Assembly.”) ]. For example, if one “qualified elector” casts
a lawful ballot, but a fraudulent voter casts ten ballots, then
that elector's vote will, under Plaintiffs’ theory, be diluted by
a magnitude of ten—resulting in differential treatment.
*46 The problem with this theory is that there does not
appear to be any law to support it. Indeed, if this were a
true equal-protection problem, then it would transform every
violation of state election law (and, actually, every violation
of every law) into a potential federal equal-protection claim
requiring scrutiny of the government's “interest” in failing
to do more to stop illegal activity. This is not the law. To
the contrary, it is well-established that even violations of
state election laws by state officials, let alone violations
by unidentified third parties, do not give rise to federal
constitutional claims except in unusual circumstances. See
Shipley v. Chicago Bd. of Election Commissioners, 947 F.3d
1056, 1062 (7th Cir. 2020) (“A violation of state law does not
state a claim under § 1983, and, more specifically, a deliberate
violation of state election laws by state election officials
does not transgress against the Constitution.”) (cleaned up);
Martinez v. Colon, 54 F.3d 980, 989 (1st Cir. 1995) (“[T]he
Constitution is not an empty ledger awaiting the entry of an
aggrieved litigant's recitation of alleged state law violations—
no matter how egregious those violations may appear within
the local legal framework.”).
Thus, this type of equal-protection claim fails as a matter of
law, as well.

2. If Pennsylvania's “uneven” use of drop boxes indirectly
burdens the right to vote at all, that burden is slight, and
justified by important state interests.
Even assuming that Plaintiffs could establish unequal
treatment to state an equal-protection claim, their claim
nonetheless fails because the governmental interests here
outweigh any burden on the right to vote.
Initially, the Court finds that the appropriate level of
scrutiny is rational basis. Defendants’ failure to implement a
mandatory requirement to “man” drop boxes doesn't directly
infringe or burden Plaintiffs’ rights to vote at all. Indeed, as
discussed above in the context of standing, what Plaintiffs
characterize as the burden or harm here is really just an
ancillary ‘increased risk’ of a theoretical harm, the degree of
which has not been established with any empirical precision.

See Obama, 697 F.3d at 429 (“If a plaintiff alleges only that
a state treated him or her differently than similarly situated
voters, without a corresponding burden on the fundamental
right to vote, a straightforward rational basis standard of
review should be used.”); Brehm, 432 F. Supp. 3d at 310
(“Under this framework, election laws that impose no burden
on the right to vote are subject to rational-basis review.”).
On rational-basis review, the Secretary's guidance here
passes constitutional muster. Her guidance certainly provides
some flexibility in how counties may use drop boxes, but
the guidance overall is rationally related to a legitimate
governmental interest—namely, the implementation of drop
boxes in a secure manner, taking into account specific county
differences. That Plaintiffs feel the decisions and actions of
the Pennsylvania General Assembly, Secretary Boockvar, and
the county Defendants are insufficient to prevent fraud or
illegal voting is of no significance. “[R]ational-basis review
in equal protection analysis is not a license for courts to judge
the wisdom, fairness, or logic of legislative choices.” Heller v.
Doe by Doe, 509 U.S. 312, 319, 113 S.Ct. 2637, 125 L.Ed.2d
257 (1993).
As detailed above, Secretary Boockvar's guidance provides
lawful, comprehensive, and reasonable standards with respect
to (1) selecting the location of drop boxes, (2) drop-box
design criteria, (3) signage, (4) drop-box security measures,
and (5) drop-box ballot collection and chain of custody
procedures. Of particular note, with respect to ballot security,
the Secretary's guidance calls for the use of reasonably robust
measures like video surveillance, durable and tamperproof
design features, regular ballot collection every 24 hours,
chain-of-custody procedures to maintain ballot traceability,
and signage advising voters that third-party delivery is
prohibited, among other things.
To be sure, the Secretary's guidance doesn't insist on the use
of security personnel—though some counties have decided to
post security guards outside of drop boxes on their own. But
the Court can't say that either the Secretary's failure to provide
that requirement, or the decision of some counties to proceed
with drop boxes “unmanned,” is irrational. For example, the
evidence presented demonstrates that placing a security guard
outside of a drop box at all times is costly, particularly for
cash-strapped counties—at least $13 per hour or about $104
(8 hours) to $312 (24 hours) per day, according to Defendants’
expert, Professor Robert McNair. [ECF 549-11, p. 11] In the
context of a broader election system that detects and deters
fraud at many other stages of the voting process, and given

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2020 Case 2:20-cv-01771-PP Filed 12/09/20 Page 39 of 63 Document 78-3

39

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

that that there are also no equivalent security measures present
at U.S. postal mailboxes (which constitute an arguably more
tempting vehicle for the would-be ballot harvester), the Court
finds that the lack of any statewide requirement that all drop
boxes be manned or otherwise surveilled is reasonable, and
certainly rational.
*47 But even assuming Plaintiffs are right that their right
to vote here has been burdened (and thus a heightened
level of scrutiny must apply), that burden is slight and
cannot overcome Defendants’ important state interests under
the Anderson-Burdick framework. Indeed, courts routinely
find attenuated or ancillary burdens on the right to vote to
be “slight” or insignificant, even burdens considerably less
attenuated or ancillary than any burden arguably shown here.
See, e.g., Weber v. Shelley, 347 F.3d 1101, 1106 (9th Cir. 2003)
(“Under Burdick, the use of touchscreen voting systems is
not subject to strict scrutiny simply because this particular
balloting system may make the possibility of some kinds of
fraud more difficult to detect.”).11
To begin with, application of the Anderson-Burdick
framework here presents something of a “square peg,
round hole” dilemma. After all, that test assumes there is
some constitutional injury to “weigh” against the state's
“important” regulatory interests in the first place. And without
differential treatment of votes or voters, there isn't any equalprotection injury for the Court to balance.
The Anderson-Burdick test is also ill-fitted to Plaintiffs’
claims for another reason. Typically, Anderson-Burdick is
invoked where the government takes some direct action to
burden or restrict a plaintiff's right to vote. Here, in contrast,
Plaintiffs complain that Pennsylvania has indirectly burdened
the right to vote through inaction—i.e., by not imposing
enough regulation to secure the voting process it has adopted,
which, Plaintiffs say, will allow third parties to vote in an
unlawful way, which, if it happens, will dilute (and thus
burden) the right to vote.
*48 This unusual causal daisy-chain makes it difficult to
apply Anderson-Burdick’s balancing approach. After all, it
is one thing to assess the government's interest in taking a
specific action that imposed burdens on the right to vote.
It is much less natural for a court to evaluate whether the
government had a good reason for not doing something
differently, or for failing to do more to prevent (or reduce the
risk of) misconduct by third parties that could burden the right
to vote.

To the extent Anderson-Burdick applies in such
circumstances, the appropriate course would, in this
Court's view, be to weigh any burden stemming from
the government's alleged failures against the government's
interest in enacting the broader election scheme it has
erected, of which the challenged piece is usually only one
part. Focusing solely on the allegedly inadequate procedure
being challenged, such as the state's authorization of “drop
boxes” here, would ignore the fact that Election Code
provisions and regulations operate as part of a single,
complex organism balancing many competing interests, all of
which are “important” for purposes of the Anderson-Burdick
analysis. See, e.g., Crawford, 553 U.S. at 184, 128 S.Ct.
1610 (“deterring and detecting voter fraud”); Tedards v.
Ducey, 951 F.3d 1041, 1067 (9th Cir. 2020) (“voter turnout”);
Lunde v. Schultz, 221 F. Supp. 3d 1095, 1106 (S.D. Iowa
2014) (“expanding ballot access to nonparty candidates”);
Greenville Cnty. Republican Party Exec. Comm. v. South
Carolina, 824 F. Supp. 2d 655, 671 (D.S.C. 2011)
(“promoting voter participation in the electoral process”);
Mays v. LaRose, 951 F.3d 775, 787 (6th Cir. 2020) (“orderly
administration of elections”); Dudum, 640 F.3d at 1115
(“orderly administration of ... elections”); Paher v. Cegavske
, 457 F.Supp.3d 919, ––––, 2020 WL 2089813, at *7
(2020) (“protect[ing] the health and safety of ... voters” and
“safeguard[ing] the voting franchise”); Nemes, ––– F. Supp.
3d at ––––, 2020 WL 3402345, at *13 (“implementing voting
plans that provide for a free and fair election while attempting
to minimize the spread of COVID-19”).
Thus, on the “burden” side of the equation is Plaintiffs’ harm
of vote dilution predicated on a risk of fraud. As discussed
above in the context of lack of standing, that burden is slight,
factually, because it is based on largely speculative evidence
of voter fraud generally, anecdotal evidence of the mis-use of
certain drop boxes during the primary election, and worries
that the counties will not implement a “best practice” of
having poll workers or guards man the drop boxes. See [ECF
461, ¶¶ 63-82; ECF 504-2, ¶ 12; 504-3, ¶ 6; 504-4, ¶7;; ECF
504-6, ¶¶ 6-8; ECF 504-7, ¶¶ 5-9; ECF 504-9, 92:4-10; ECF
504-10, 60:3-61:10; 504-19, pp. 3, 16-18, 20 & Ex. D; ECF
504-25; ECF 504-49; ECF 509, p. 67; ECF 551, p. 34].
This somewhat scant evidence demonstrates, at most, an
increased risk of some election irregularities—which, as
many courts have held, does not impose a meaningful
burden under Anderson-Burdick. “Elections are, regrettably,
not always free from error,” Hutchinson v. Miller, 797 F.2d

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2021 Case 2:20-cv-01771-PP Filed 12/09/20 Page 40 of 63 Document 78-3

40

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

1279, 1286–87 (4th Cir. 1986), let alone the “risk” of error.
In just about every election, votes are counted, or discounted,
when the state election code says they should not be. But the
Constitution “d[oes] not authorize federal courts to be state
election monitors.” Gamza v. Aguirre, 619 F.2d 449, 454 (5th
Cir. 1980). It is “not an empty ledger awaiting the entry of an
aggrieved litigant's recitation of alleged state law violations.”
Fournier v. Reardon, 160 F.3d 754, 757 (1st Cir. 1998). Nor
is it “an election fraud statute.” Minnesota Voters, 720 F.3d
at 1031.
*49 “Garden variety” election irregularities, let alone the
“risk” of such irregularities, are simply not a matter of
federal constitutional concern “even if they control the
outcome of the vote or election.” Bennett v. Yoshina, 140
F.3d 1218, 1226 (9th Cir. 1998). And as discussed above,
most often, even “a deliberate violation of state election laws
by state election officials does not transgress against the
Constitution.” Shipley, 947 F.3d at 1062. see, e.g., Lecky v.
Virginia State Bd. of Elections, 285 F. Supp. 3d 908, 919 (E.D.
Va. 2018) (“[E]ven assuming the Fredericksburg officials’
failure to provide provisional ballots amounted to a violation
of state law, it would not rise to the level of an equal protection
violation.”).
Compared, then, to Plaintiffs’ slight burden, the
Commonwealth has put forward reasonable, precise, and
sufficiently weighty interests that are undisputed and that can
be distilled into three general categories: (1) the benefits of
drop boxes, (2) the Commonwealth's interests in furthering its
overall election-security plan concerning drop boxes, and (3)
the interests inherent in the Commonwealth's general mail-in
ballot scheme.
The first category concerns the benefits of drop boxes
generally. Secretary Boockvar has pointed out the
Commonwealth's interests generally in using drop boxes—
including, (1) the increase of voter turnout, (2) the protection
of voters’ health in the midst of the ongoing pandemic, (3) the
increase of voter satisfaction, in light of ongoing U.S. Postal
Service issues, and (4) the reduction of costs for counties.
[ECF No. 547, at pp. 22-25; ECF No. 549-2, ¶¶ 36-39, 42-44].
Plaintiffs do not dispute any of these interests.
The second category of interests concerns the
Commonwealth's interests in implementing drop boxes with
appropriate and effective safety measures and protocols in
place. That is, Secretary Boockvar has, in her capacity as
the chief state official charged with overseeing elections,

issued uniform guidance to all counties regarding the use of
drop boxes, which is noted above. That guidance includes
(1) advising counties that the Election Code permits the
use of drop boxes, and (2) setting forth best practices that
the counties should “consider” with respect to their use.
Among other things, the Secretary advised that counties
should maintain a traceable chain of custody for mail-in
and absentee ballots retrieved from drop boxes; utilize drop
boxes with various security features (e.g., anti-tampering
features, locks, video surveillance, and removal when the site
is closed or cannot be monitored); and designate sworn county
personnel to remove ballots from drop boxes. And evidence
suggests that the Secretary's deputies have emphasized these
best practices when queried by county officials. [ECF 549-32
(“Per our conversation, the list of items are things the county
must keep in mind if you are going to provide a box for voters
to return their ballots in person.”) ].
This guidance is lawful, reasonable, and non-discriminatory,
and so does not create any constitutional issue in its own
right. With this guidance, the Secretary has diminished the
risks tolerated by the legislature in adopting mail-in voting
and authorizing drop-boxes, by encouraging the counties to
adopt rather comprehensive security and chain-of-custody
procedures if they do elect to use drop boxes. Conversely,
the legislature's decision to leave the counties with ultimate
discretion when it comes to how, and to what extent,
to use drop boxes (as opposed to adopting a scheme in
which the Secretary could enforce compliance with her
guidance) is also reasonable, and justified by sufficiently
weighty governmental interests, given the many variations
in population, geography, local political culture, crime rates,
and resources. [ECF 549-9 (“There is no logical reason why
ballot receptacles such as drop boxes must be uniform across
different counties; particularly because the verification of the
voter is determined by election officials upon receipt of the
ballot. Counties vary in size and need. Across the country,
best practices dictate that counties determine what type of
box and size works for them. The needs of a large county
are very different from the needs of a smaller county.”); ECF
549-11, p. 9 (“Such variation between counties even within a
state makes sense, since the needs of different counties vary
and their use of drop boxes reflects those considerations (e.g.,
the geographic size of a county, the population of the county,
and the ease with which voters in the county can access other
locations to return mail-in ballots).”].
*50 The third category of interests is, more generally, the
interests of the Commonwealth in administering its overall

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2022 Case 2:20-cv-01771-PP Filed 12/09/20 Page 41 of 63 Document 78-3

41

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

mail-in ballot regime, including the various security and
accountability measures inherent in that legislative plan.

counterfeiting of ballots 25 P.S § 3516; and much more of the
conduct Plaintiffs fear, see 25 P.S. § 3501, et seq.

Pennsylvania did not authorize drop boxes in a vacuum. Last
year, the Pennsylvania legislature “weigh[ed] the pros and
cons,” Weber, 347 F.3d at 1107, and adopted a broader system
of “no excuse” mail-in voting as part of the Commonwealth's
Election Code. As the Pennsylvania Supreme Court has now
confirmed, that system left room for counties to authorize
drop boxes and other satellite locations for returning ballots
to the county boards of elections. See Boockvar, ––– A.3d
at ––––, 2020 WL 5554644, at *9 (“[W]e need not belabor
our ultimate conclusion that the Election Code should be
interpreted to allow county boards of election to accept handdelivered mail-in ballots at locations other than their office
addresses including drop-boxes.”).

In this larger context, the Court cannot say that the
balance Pennsylvania struck across the Election Code was
unreasonable, illegitimate, or otherwise not “sufficiently
weighty to justify,” Crawford, 553 U.S. at 191, 128 S.Ct.
1610, whatever ancillary risks may be associated with the
use of drop boxes, or with allowing counties to exercise
discretion in that regard. Pennsylvania may balance the many
important and often contradictory interests at play in the
democratic process however it wishes, and it must be free to
do so “without worrying that a rogue district judge might later
accuse it of drawing lines unwisely.” Abbott, 961 F.3d at 407.

Inherent in any mail-in or absentee voting system is some
degree of increased risk of votes being cast in violation of
other provisions of the Election Code, regardless of whether
those ballots are returned to drop boxes, mailboxes, or some
other location. For example, there is simply no practical
way to police third party delivery of ballots to any mailbox
anywhere in the Commonwealth, where Plaintiffs do not
dispute that such ballots can be lawfully returned. It is also
likely that more (and perhaps many more) voters than usual
will be disenfranchised by technicalities this year, for failing
to comply with the procedural requirements associated with
mail-in ballots, such as the requirement that such ballots be
placed in “inner secrecy envelopes.”
But in enacting the “no excuse” mail-in voting system that
it did, the Pennsylvania legislature chose to tolerate the risks
inherent in that approach. And the key point is that the
legislature made that judgment in the context of erecting a
broader election scheme that authorizes other forms of voting
and has many other safeguards in place to catch or deter
fraud and other illegal voting practices. These safeguards
include voter registration; a mail-in ballot application and
identity verification process, 25 P.S. §§ 3146.2, 3150.12; a
system for tracking receipt of mail-in ballots, 25 P.S. §§
3146.3(a), 3150.13(a); and, perhaps most important of all, a
pre-canvassing and canvassing process during which mailin ballots are validated before being counted. In addition,
Pennsylvania law also seeks to deter and punish fraud by
imposing criminal penalties for unlawful voting, 25 P.S §
3533; voting twice in one election, 25 P.S § 3535; forging
or destroying ballots, 25 P.S § 3517; unlawful possession or

*51 Thus, balancing the slight burden of Plaintiffs’ claim of
dilution against the categories of interests above, the Court
finds that the Commonwealth and Defendants’ interests in
administering a comprehensive county-based mail-in ballot
plan, while both promoting voting and minimizing fraud,
are sufficiently “weighty,” reasonable, and justified. Notably,
in weighing the burdens and interests at issue, the Court is
mindful of its limited role, and careful to not intrude on what is
“quintessentially a legislative judgment.” Griffin, 385 F.3d at
1131. “[I]t is the job of democratically-elected representatives
to weigh the pros and cons of various balloting systems.”
Weber, 347 F.3d at 1106. “So long as their choice is reasonable
and neutral, it is free from judicial second-guessing.” Id.; see
also Abbott, 961 at 407, (“That the line might have been
drawn differently ... is a matter for legislative, rather than
judicial, consideration.”) (cleaned up); Trinsey v. Com. of Pa.,
941 F.2d 224, 235 (3d Cir. 1991) (“We take no position on the
balancing of the respective interests in this situation. That is
a function for which the legislature is uniquely fitted.”).
Thus, even under the Anderson-Burdick framework, the Court
finds that Plaintiffs’ constitutional challenge fails as a matter
of law.
B. Pennsylvania's use of drop boxes does not violate
federal due process.
In addition to their equal-protection challenge to the use
of drop boxes, Plaintiffs also appear to argue that the use
of unmanned drop boxes violates substantive due process
protected by the 14th Amendment. This argument is just a
variation on their equal-protection argument—i.e., the uneven
use of drop boxes will work a “patent and fundamental
unfairness” in violation of substantive due process principles.
See Griffin v. Burns, 570 F.2d 1065, 1077 (1st Cir. 1978)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2023 Case 2:20-cv-01771-PP Filed 12/09/20 Page 42 of 63 Document 78-3

42

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

(substantive due process rights are violated “[i]f the election
process itself reaches the point of patent and fundamental
unfairness[.]”). The analysis for this claim is the same as that
for equal protection, and thus it fails for the same reasons.
But beyond that, this claim demands even stricter proof. Such
a claim exists in only the most extraordinary circumstances.
See Nolles v. State Comm. for Reorganization of Sch.
Districts, 524 F.3d 892, 898 (8th Cir. 2008) (“A canvass
of substantive due process cases related to voting rights
reveals that voters can challenge a state election procedure
in federal court only in limited circumstances, such as
when the complained of conduct discriminates against a
discrete group of voters, when election officials refuse to
hold an election though required by state law, resulting in a
complete disenfranchisement, or when the willful and illegal
conduct of election officials results in fraudulently obtained or
fundamentally unfair voting results.”) (cleaned up); Yoshina,
140 F.3d at 1226 (“We have drawn a distinction between
‘garden variety’ election irregularities and a pervasive error
that undermines the integrity of the vote. In general, garden
variety election irregularities do not violate the Due Process
Clause, even if they control the outcome of the vote or
election.”) (citation omitted); Bennett v. Mollis, 590 F. Supp.
2d 273, 278 (D.R.I. 2008) (“Before an election error becomes
a key that unlocks the restraints on the federal court's authority
to act, the Plaintiffs must demonstrate either an intentional
election fraud or an unintentional error resulting in broadgauge unfairness.”).
Indeed, “only the most egregious official conduct can be said
to be arbitrary in the constitutional sense”—the “executive
action must be so ill-conceived or malicious that it ‘shocks
the conscience.’ ” Miller v. City of Phila., 174 F.3d 368, 375
(3d Cir. 1999) (cleaned up).
Based on the slight burden imposed here, and the
Commonwealth's interests in their overall county specific
voting regime, which includes a host of other fraudprevention measures, the Court finds that the drop-box claim
falls short of the standard of substantive due process.
III. Defendants and Intervenors are entitled to summary
judgment on Plaintiffs’ signature-comparison claims.
*52 Plaintiffs’ next claim concerns whether the Secretary's
recent guidance on signature comparison violates the federal
Constitution. Plaintiffs frame their claims pertaining to
signature comparison in two ways—one based on due process
and the other based on equal protection.

Plaintiffs initially assert that the Election Code requires a
signature comparison for mail-in and absentee applications
and ballots. Thus, according to Plaintiffs, Secretary
Boockvar's guidance, which says the opposite, is creating
unconstitutional vote dilution, in violation of due-process
principles—i.e., certain unlawful, unverified ballots will
now be counted, thereby diluting the lawful ones cast by
other voters (such as in-person voters, whose signatures are
verified). Plaintiffs also appear to argue more generally that
absent signature comparison, there is a heightened risk of
voter fraud, and therefore a heightened risk of vote dilution
of lawful votes.
In addition to due process, Plaintiffs argue that the
guidance violates equal-protection principles—first, by
counties engaging in a patchwork of procedures (where some
counties intend to do a signature comparison for mail-in
ballots, while others do not); and second, by implementing
different standards between mail-in ballots and in-person
ones.
In contrast, Defendants and Intervenors take the position
that state law does not require signature comparison, and for
good reason. According to them, requiring such comparisons
is fraught with trouble, as signatures change over time and
elections officials are not signature-analysis experts. This
leaves open the possibility for arbitrary and discriminatory
application that could result in the disenfranchisement of
valid voters.
For the reasons that follow, the Court will dismiss the
signature-comparison claims and enter judgment in favor
of Defendants. A plain reading of the Election Code
demonstrates that it does not impose a signature-comparison
requirement for mail-in ballots and applications, and thus
Plaintiffs’ vote-dilution claim sounding in due process fails
at the outset. Further, the heightened risk of fraud resulting
from a lack of signature comparison, alone, does not rise
to the level of a federal constitutional violation. Finally, the
equal-protection claims fail because there are sound reasons
for the different treatment of in-person ballots versus mailin ballots; and any potential burdens on the right to vote are
outweighed by the state's interests in their various election
security measures.
A. The Election Code does not require signature
comparison for mail-in and absentee ballots or ballot
applications.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2024 Case 2:20-cv-01771-PP Filed 12/09/20 Page 43 of 63 Document 78-3

43

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Plaintiffs’ federal-constitutional claims in Count I of their
Second Amended Complaint are partially based on the
Secretary's guidance violating state law. That is, Plaintiffs’
first theory is that by the Secretary violating state law,
unlawful votes are counted and thus lawfully cast votes are
diluted. According to Plaintiffs, this violates the 1st and 14th
Amendments, as well as the Elections Clause (the latter of
which requires the legislature, not an executive, to issue
election laws).12
*53 Thus, a necessary predicate for these constitutional
claims is whether the Election Code mandates signature
comparison for mail-in and absentee ballots. If it doesn't,
as the Secretary's guidance advises, then there can be no
vote dilution as between lawful and unlawful votes, nor a
usurpation of the legislature's authority in violation of the
Elections Clause.
After carefully considering the parties’ arguments and
the relevant law, the Court finds that the plain language
of the Election Code imposes no requirement for
signature comparison for mail-in and absentee ballots and
applications.13 In other words, the Secretary's guidance is
consistent with the Election Code, and creates no votedilution problems.14
Plaintiffs, in advancing their claim, rely on section 3146.8(g)
(3)-(7) of the Election Code to assert that the Code requires
counties to “verify” the signatures on mail-in and absentee
ballots (i.e., examine the signatures to determine whether
they are authentic). Plaintiffs specifically point to section
3146.8(g)(3) as requiring this signature verification. [ECF
509, pp. 17-18].
Section 3146.8(g)(3) states:
When the county board meets to pre-canvass or canvass
absentee ballots and mail-in ballots ... the board shall
examine the declaration on the envelope of each ballot ...
and shall compare the information thereon with that
contained in the “Registered Absentee and Mail-in Voters
File,” the absentee voters’ list and/or the “Military Veterans
and Emergency Civilians Absentee Voters File,” whichever
is applicable. If the county board has verified the proof of
identification as required under this act and is satisfied that
the declaration is sufficient and the information contained
in the “Registered Absentee and Mail-in Voters File,” the
absentee voters’ list and/or the “Military Veterans and
Emergency Civilians Absentee Voters File” verifies his

right to vote, the county board shall provide a list of the
names of electors whose absentee ballots or mail-in ballots
are to be pre-canvassed or canvassed.
*54 25 P.S. § 3146.8(g)(3).
According to Plaintiffs, Section 3146.8(g)(3)’s requirement
to verify the proof of identification, and compare the
information on the declaration, is tantamount to signature
comparison. The Court disagrees, for at least three reasons.
First, nowhere does the plain language of the statute require
signature comparison as part of the verification analysis of the
ballots.
When interpreting a statute enacted by the Pennsylvania
General Assembly, courts apply Pennsylvania's Statutory
Construction Act, 1 Pa. C.S. §§ 1501-1991. And as the Act
instructs, the “object of all interpretation and construction
of statutes is to ascertain and effectuate the intention of the
General Assembly.” 1 Pa C.S. § 1921(a). If the words of
the statute are clear and unambiguous, the letter of the law
applies. Id. at § 1921(b). Otherwise, courts may consider
a variety of factors to determine the legislature's intent,
including “other statutes upon the same or similar subjects”
and “[t]he consequences of a particular interpretation.” Id. at
§ 1921(c)(5)-(6).
Section 3146.8(g)(3) does not expressly require any signature
verification or signature comparison. 25 P.S. § 3146.8(g)
(3). It instead requires election officials to (1) “examine the
declaration on the envelope of each ballot,” (2) “compare
the information thereon with that contained in the ... ‘Voters
file’ [or] the absentee voters’ list,” and (3) if “the county board
has [a] verified the proof of identification as required under
this act and [b] is satisfied that the declaration is sufficient and
the information contained in the [Voter's file] ... verifies his
right to vote,” the election official shall include the ballot to
be counted. Id.
Under the express terms of the statute, then, the information
to be “verified” is the “proof of identification.” Id. The
Election Code defines “proof of identification” as the mailin/absentee voter's driver's license number, last four digits of
their Social Security number, or a specifically approved form
of identification. 25 P.S. § 2602(z.5)(3)(i)-(iv).15 The only
other “verification” the election official must conduct is to
determine whether “the information contained in the [Voter's
file] ... verifies his right to vote.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2025 Case 2:20-cv-01771-PP Filed 12/09/20 Page 44 of 63 Document 78-3

44

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

*55 Nowhere does this provision require the election
official to compare and verify the authenticity of the elector's
signature. In fact, the word “signature” is absent from the
provision. It is true that the elector must fill out and sign
the declaration included on the ballot. 25 P.S. §§ 3146.6(a),
3150.16(a). However, while section 3146.8(g)(3) instructs the
election official to “examine the declaration ... and compare
the information thereon with that contained in the [Voter's
file],” the provision clarifies that this is so the election official
can be “satisfied that the declaration is sufficient.” 25 P.S.
§ 3146.8(g)(3). In other words, the election official must be
“satisfied” that the declaration is “fill[ed] out, date[d] and
sign[ed],” as required by sections 3150.16(a) and 3146.6(a)
of the Election Code. Notably absent is any instruction to
verify the signature and set aside the ballot if the election
official believes the signature to be non-genuine. There is an
obvious difference between checking to see if a signature was
provided at all, and checking to see if the provided signature is
sufficiently authentic. Only the former is referred to in section
3146.8(g)(3).
Second, beyond the plain language of the statute, other
canons of construction compel the Court's interpretation.
When interpreting statutes passed by the General Assembly,
Pennsylvania law instructs courts to look at other aspects of
the statute for context. See 1 Pa. C.S. § 1921(c)(5) (“When
the words of the statute are not explicit, the intention of the
General Assembly may be ascertained by considering ... other
statutes upon the same or similar subjects.”); O'Rourke v.
Commonwealth, 566 Pa. 161, 778 A.2d 1194, 1201 (2001)
(“The cardinal rule of all statutory construction is to ascertain
and effectuate the intent of the Legislature. To accomplish that
goal, we should not interpret statutory words in isolation, but
must read them with reference to the context in which they
appear.” (citation omitted)).
Context here is important because the General Assembly
mandated signature comparison for in-person voting
elsewhere in the Election Code—thus evidencing its intention
not to require such comparison for mail-in ballots. See Fonner
v. Shandon, Inc., 555 Pa. 370, 724 A.2d 903, 907 (1999)
(“[W]here a section of a statute contains a given provision,
the omission of such a provision from a similar section is
significant to show a different legislative intent.”) (citation
omitted).
In addressing in-person voting, the General Assembly
explicitly instructs that the election official shall, after
receiving the in-person elector's voter certificate, immediately

“compare the elector's signature on his voter's certificate
with his signature in the district register. If, upon such
comparison, the signature upon the voter's certificate appears
to be genuine, the elector who has signed the certificate shall,
if otherwise qualified, be permitted to vote: Provided, That
if the signature on the voter's certificate, as compared with
the signature as recorded in the district register, shall not be
deemed authentic by any of the election officers, such elector
shall not be denied the right to vote for that reason, but shall
be considered challenged as to identity and required to [cure
the deficiency].” 25 P.S. § 3050(a.3)(2) (emphasis added).
Elsewhere, the General Assembly also explicitly accounts
for signature comparison of in-person voters: “[I]f it is
determined that the individual was registered and entitled
to vote at the election district where the ballot was cast,
the county board of elections shall compare the signature
on the provisional ballot envelope with the signature on
the elector's registration form and, if the signatures are
determined to be genuine, shall count the ballot if the
county board of elections confirms that the individual did
not cast any other ballot, including an absentee ballot, in the
election. ... [But a] provisional ballot shall not be counted
if ... the signature[s] required ... are either not genuine
or are not executed by the same individual ...” 25 P.S. §
3050(a.4)(5)(i)-(ii) (emphasis added); see also 25 P.S. § 2936
(“[When reviewing nomination papers], the Secretary of the
Commonwealth or the county board of elections, although
not hereby required so to do, may question the genuineness
of any signature or signatures appearing thereon, and if
he or it shall thereupon find that any such signature or
signatures are not genuine, such signature or signatures shall
be disregarded[.]” (emphasis added)).
*56 Clearly then, the General Assembly, in enacting the
Election Code, knew that it could impose a signaturecomparison requirement that requires an analysis to
determine whether a signature is “genuine.” And when
that was its intent, the General Assembly explicitly and
unequivocally imposed that requirement. It is thus telling,
from a statutory construction standpoint, that no such explicit
requirement is imposed for returned mail-in or absentee
ballots. Indeed, the General Assembly is aware—and in fact,
requires—that a voter must sign their application for an
absentee or mail-in ballot, and must sign the declaration
on their returned ballot. 25 P.S. §§ 3146.2(d) (absenteeballot application), 3150.12(c) (mail-in-ballot application),
3146.6(a) (absentee-voter declaration), 3150.16(a) (mail-in
voter declaration). Despite this, the General Assembly did

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2026 Case 2:20-cv-01771-PP Filed 12/09/20 Page 45 of 63 Document 78-3

45

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

not mention a signature-comparison requirement for returned
absentee and mail-in ballots.
The Court concludes from this context that this is because the
General Assembly did not intend for such a requirement. See,
e.g., Mishoe v. Erie Ins. Co., 573 Pa. 267, 824 A.2d 1153,
1155 (2003) (“In arriving at our conclusion that the foregoing
language does not provide for the right to a jury trial, we relied
on three criteria. First, we put substantial emphasis on the
fact that the PHRA was silent regarding the right to a jury trial.
As we explained, ‘the General Assembly is well aware of its
ability to grant a jury trial in its legislative pronouncements,’
and therefore, ‘we can presume that the General Assembly's
express granting of trial by jury in some enactments means
that it did not intend to permit for a jury trial under the PHRA.’
” (cleaned up) (emphasis added)); Holland v. Marcy, 584
Pa. 195, 883 A.2d 449, 456, n.15 (2005) (“We additionally
note that the legislature, in fact, did specify clearly when
it intended the choice of one individual to bind others. In
every other category addressed by Section 1705(a) other
than (a)(5) which addressed uninsured owners, the General
Assembly specifically referenced the fact that the decision
of the named insured ... binds other household members....
Similar reference to the ability of the uninsured owner's
deemed choice to affect the rights of household members is
conspicuously missing from Section 1705(a)(5).”).
Accordingly, the Court finds that the General Assembly's
decision not to expressly refer to signature comparisons for
mail-in ballots, when it did so elsewhere, is significant.
Third, this Court is mindful that Pennsylvania's election
statutes are to be construed in a manner that does not risk
disenfranchising voters. See, e.g., 1 Pa. C.S. § 1922(3) (“In
ascertaining the intention of the General Assembly in the
enactment of a statute the following presumptions, among
others, may be used: ... That the General Assembly does not
intend to violate the Constitution of the United States or of
this Commonwealth.”); id. at § 1921(c)(6) (in interpreting
a statute, the court may consider “[t]he consequences of a
particular interpretation”).
As the Pennsylvania Supreme Court emphasized last month,
“[I]t is well-settled that, although election laws must be
strictly construed to prevent fraud, they ordinarily will be
construed liberally in favor of the right to vote. Indeed,
our goal must be to enfranchise and not to disenfranchise
the electorate.” Boockvar, ––– A.3d at ––––, 2020 WL
5554644, at *9 (cleaned up); see also id. (“[A]lthough both

Respondent and the Caucus offer a reasonable interpretation
of Section 3150.16(a) as it operates within the Election Code,
their interpretation restricts voters’ rights, as opposed to
the reasonable interpretation tendered by Petitioner and the
Secretary. The law, therefore, militates in favor of this Court
construing the Election Code in a manner consistent with the
view of Petitioner and the Secretary, as this construction of the
Code favors the fundamental right to vote and enfranchises,
rather than disenfranchises, the electorate.”).
*57 Here, imposing a signature-comparison requirement as
to mail-in and absentee ballots runs the risk of restricting
voters’ rights. This is so because election officials, unstudied
and untested in signature verification, would have to
subjectively analyze and compare signatures, which as
discussed in greater detail below, is potentially problematic.16
[ECF 549-2, p. 19, ¶ 68]; [ECF 549-9, p. 20, ¶ 64].
And perhaps more importantly, even assuming an adequate,
universal standard is implemented, mail-in and absentee
voters whose signatures were “rejected” would, unlike inperson voters, be unable to cure the purported error. See
25 P.S. § 3146.8(a) (stating that in-person and absentee
ballots “shall [be safely kept] in sealed or locked containers
until they are to be canvassed by the county board of
elections,” which § 3146.8(g)(1.1)-(2) states is no earlier
than election day); Boockvar, ––– A.3d at ––––, 2020 WL
5554644, at *20 (“[A]lthough the Election Code provides
the procedures for casting and counting a vote by mail, it
does not provide for the ‘notice and opportunity to cure’
procedure sought by Petitioner. To the extent that a voter is at
risk for having his or her ballot rejected due to minor errors
made in contravention of those requirements, we agree that
the decision to provide a ‘notice and opportunity to cure’
procedure to alleviate that risk is one best suited for the
Legislature.” . As discussed in more detail below, unlike inperson voters, whose signatures are verified in their presence,
mail-in and absentee voters’ signatures would be verified at a
later date outside the presence of the voter. See generally 25
P.S. § 3146.8(a), (g) (requiring mail-in and absentee ballots
to be kept secured in a sealed container until Election Day).
Unbeknownst to the voter, then, and without an opportunity
to remedy the purported error, these mail-in and absentee
voters may not have their votes counted. Based on this risk
of disenfranchisement, which the Court must consider in
interpreting the statute, the Court cannot conclude that this
was the General Assembly's intention.
The Court is not persuaded by Plaintiffs’ arguments to the
contrary.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2027 Case 2:20-cv-01771-PP Filed 12/09/20 Page 46 of 63 Document 78-3

46

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Plaintiffs argue that section 3146.8(g)(5)-(7) provides a
voter, whose ballot-signature was rejected, notice and an
opportunity to cure the signature deficiency. [ECF 509, pp.
13, 18, 50]. That section, however, refers to when a person
raises a specific challenge to a specific ballot or application on
the grounds that the elector is not a “qualified elector.” 25 P.S.
§ 3146.8(g)(4) (stating that mail-in and absentee ballots shall
be counted unless they were challenged under §§ 3146.2b
or 3150.12b, which allow challenges on the grounds that
the elector applying for a mail-in or absentee ballot wasn't
qualified). Thus, the “challenges” referenced in § 3146.8(g)
(5)-(7) refer to a voter's qualifications to vote, not a signature
verification.
Plaintiffs similarly argue that section 3146.8(h) provides
mail-in voters notice and opportunity to cure signature
deficiencies. [ECF 552, p. 60]. But that section relates to
“those absentee ballots or mail-in ballots for which proof
of identification has not been received or could not be
verified.” 25 P.S. § 3146.8(h). As discussed above, “proof
of identification” is a defined term, and includes the voter's
driver's license number, last four digits of their Social Security
number, or a specifically approved form of identification.
25 P.S. § 2602(z.5)(3)(i)-(iv). Not included is the voter's
signature.17
*58 At bottom, Plaintiffs request this Court to impose
a requirement—signature comparison—that the General
Assembly chose not to impose. Section 3146.8(g)(3) does not
mention or require signature comparison. The Court will not
write it into the statute.
For the same reasons that the Election Code does not
impose a signature-comparison requirement for mail-in and
absentee ballots, the Election Code does not impose a
signature-comparison requirement for mail-in and absentee
ballot applications. While the General Assembly imposed
a requirement that the application be signed, there is no
mention of a requirement that the signature be verified,
much less that the application be rejected based solely
on such verification. 25 P.S. §§ 3146.2(d) (absentee-ballot
application), 3150.12(c) (mail-in-ballot application). Again,
finding no explicit instructions for signature comparison here
(unlike elsewhere in the Code), the Court concludes that
the General Assembly chose not to include a signaturecomparison requirement for ballot applications.

The Court again finds Plaintiffs’ arguments to the contrary
unavailing. Plaintiffs argue that “there is no other proof
of identification required to be submitted with the ballot
applications,” and thus, a signature comparison must be
required. [ECF 509, p. 16].
But the Election Code expressly requires the applicant to
include several pieces of identifying information, including
their name, mailing address, and date of birth. 25 P.S. §§
3146.2(b), 3150.12(b). And after receiving the applicant's
application, the election official must “verify[ ] the proof
of identification [a defined term as discussed above] and
compar[e] the information provided on the application with
the information contained on the applicant's permanent
registration card.”18 Id. at §§ 3146.2b(c), 3150.12b(a). Thus,
contrary to Plaintiffs’ argument, the General Assembly
provided for certain methods of identification as to ballot
applications. Signature verification isn't one of them.
For these reasons, the Court concludes that the Election
Code does not impose a signature-comparison requirement
for absentee and mail-in ballots and applications. As such,
the Secretary's September 11, 2020, and September 28, 2020,
guidance is consistent with the Election Code. Plaintiffs’
claims of vote dilution based on this guidance will therefore
be dismissed.
B. The lack of a signature comparison does not violate
substantive due process.
In addition to alleging that the Secretary's guidance violates
the Election Code, Plaintiffs appear to also argue that their
right to vote is unconstitutionally burdened and diluted due to
a risk of fraud. That is, regardless of what the Election Code
requires, Plaintiffs assert that absent signature comparison,
mail-in and absentee ballots will be prone to fraud, thereby
diluting other lawful ballots. [ECF 509, pp. 45-50; 504-19,
pp. 10-15]. Plaintiffs argue that this significantly burdens their
fundamental right to vote, resulting in a due-process violation,
and thus strict scrutiny applies. The Court disagrees.
*59 As discussed above in the context of Plaintiffs’
drop-box claim, Plaintiffs’ claim here simply does not rise
to the high level for a substantive due process claim.
To violate substantive due process in the voting-rights
context, the infringements are much more severe. Only
in extraordinary circumstances will there be “patent and
fundamental unfairness” that causes a constitutional harm.
See Bonas v. Town of North Smithfield, 265 F.3d 69, 74 (1st

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2028 Case 2:20-cv-01771-PP Filed 12/09/20 Page 47 of 63 Document 78-3

47

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Cir. 2001); Shannon v. Jacobowitz, 394 F.3d 90, 94 (2d Cir.
2005).
Here, Plaintiffs’ signature-comparison claim does not meet
this high standard. This isn't a situation of malapportionment,
disenfranchisement, or intentional discrimination. And the
risk of voter fraud generally without signature comparison
—as a matter of fact and law—does not rise to “patent and
fundamental unfairness.”
Indeed, as discussed above, Plaintiffs’ evidence of potential
voter fraud here is insufficient to establish “patent and
fundamental unfairness.” In their summary-judgment brief,
Plaintiffs argue that “the Secretary's September 2020
guidance memos promote voter fraud.” [ECF 509, p.
48]. Plaintiffs then offer a hypothetical where a parent
signs a ballot application on their child's behalf because
the child is out-of-state. [ECF 509, p. 48]. Plaintiffs
assert that without signature comparisons, such “fraud”
could proceed unchecked. [Id.]. Plaintiffs continue, arguing
that the “fraud” would “snowball,” so that “spouses,
neighbors, acquaintances, strangers, and others” were signing
applications and ballots on others’ behalf. [Id. at pp. 48-49].
To prevent such fraud, Plaintiffs’ expert, Mr. Riddlemoser,
asserts that signature comparison is needed. [ECF 504-19, p.
10 (“Not only does enforcing the Election Code's requirement
of a completed and signed declaration ensure uniformity,
which increases voter confidence, it also functions to reduce
fraud possibilities by allowing signature verification.”) ].
Mr. Riddlemoser first highlights that in Philadelphia in the
primary, ballots were counted “that lacked a completed
declaration.” [Id. at p. 11]. Mr. Riddlemoser further opines
that the September 11, 2020, guidance and September 28,
2020, guidance, in instructing that signature comparison is
not required for mail-in and absentee ballots and applications,
“encourage[s], rather than prevent[s], voter fraud.” [Id. at pp.
12-13]. Mr. Riddlemoser also notes that signature comparison
is “the most common method” to verify ballots and that
the Secretary's guidance “leave the absentee/mail-in ballots
subject to the potential for unfettered fraud.” [Id. at p.
14]. He concludes that the guidance “invites the dilution of
legitimately cast votes.” [Id.].
Based on this evidentiary record, construed in Plaintiffs’
favor, the Court cannot conclude that there exists “patent and
fundamental unfairness.” Rather, Plaintiffs present only the
possibility and potential for voter fraud. In their briefing,
Plaintiffs relied on hypotheticals, rather than actual events.

[ECF 509, p. 48]. Mr. Riddlemoser admits that failing to
verify signatures only creates “the potential” for fraud and
“invites” vote dilution. [ECF 504-19, pp. 14, 15]. Even
assuming an absence of signature comparison does indeed
invite the potential for fraud, the nondiscriminatory, uniform
practice and guidance does not give rise to “patent and
fundamental unfairness” simply because of a “potential” for
fraud. Plaintiffs have not presented evidence to establish a
sufficient burden on their constitutional right to vote.
*60 Indeed, even if the Court assumed some “forged”
applications or ballots were approved or counted, this is
insufficient to establish substantial, widespread fraud that
undermines the electoral process. Rather, limited instances of
“forged” ballots—which according to Plaintiffs’ definition,
includes an individual signing for their spouse or child—
amount to what the law refers to as “garden variety” disputes
of limited harm. As has long been understood, federal courts
should not intervene in such “garden variety” disputes.
Hutchinson, 797 F.2d at 1283 (“[C]ourts have uniformly
declined to endorse action under § 1983 with respect to
garden variety election irregularities.”) (cleaned up); Yoshina,
140 F.3d at 1226 (“In general, garden variety election
irregularities do not violate the Due Process Clause, even if
they control the outcome of the vote or election.” (collecting
cases)); Curry v. Baker, 802 F.2d 1302, 1314-15 (11th Cir.
1986) (“[I]f the election process itself reaches the point of
patent and fundamental unfairness, a violation of the due
process clause may be indicated and relief under § 1983
therefore in order. Such a situation must go well beyond
the ordinary dispute over the counting and marking of
ballots.” (cleaned up)).
To be clear, the Court does not take Plaintiffs’ allegations
and evidence lightly. Election fraud is serious and disruptive.
And Plaintiffs could be right that the safer course would
be to mandate signature comparison for all ballots. But
what Plaintiffs essentially complain of here is whether the
procedures employed by the Commonwealth are sufficient
to prevent that fraud. That is a decision left to the General
Assembly, not to the meddling of a federal judge. Crawford,
553 U.S. at 208, 128 S.Ct. 1610 (Scalia, J. concurring) (“It
is for state legislatures to weigh the costs and benefits of
possible changes to their election codes, and their judgment
must prevail unless it imposes a severe and unjustified overall
burden upon the right to vote, or is intended to disadvantage a
particular class.”). Griffin, 385 F.3d at 1131-32 (“[S]triking of
the balance between discouraging fraud and other abuses and
encouraging turnout is quintessentially a legislative judgment

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2029 Case 2:20-cv-01771-PP Filed 12/09/20 Page 48 of 63 Document 78-3

48

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

with which we judges should not interfere unless strongly
convinced that the legislative judgment is grossly awry.”).

not before the Court, as Plaintiffs here do not assert that
imposing a signature-comparison requirement violates the
Constitution (they allege the opposite).

C. Plaintiffs’ federal equal-protection claims based on
signature comparison fail.
Plaintiffs present two federal equal-protection claims. The
Court will address each in turn.

In any event, to the extent there was uncertainty before,
this decision informs the counties of the current state of
the law as it relates to signature comparison. If any county
still imposes a signature-comparison requirement in order
to disallow ballots, it does so without support from the
Secretary's guidance or the Election Code. Further, counties
that impose this signature-comparison requirement to reject
ballots may be creating a different potential constitutional
claim for voters whose ballots are rejected. Boockvar, –––
A.3d at ––––, 2020 WL 5554644, at *34, n.16 (Wecht, J.
concurring) (noting that courts around the country have found
due process issues with signature-comparison requirements;
and collecting cases).

1. County differences over signature comparison do not
violate federal equal-protection rights.
Plaintiffs’ first federal equal-protection claim is based on
some county boards of elections intending to verify the
signatures on mail-in and absentee ballots and applications,
while others do not intend to do so. To that end, Plaintiffs
have presented evidence that some, but not all, counties do
intend to verify signatures. E.g., [ECF 504-1].19 According
to Plaintiffs, this arbitrary and differential treatment of
mail-in and absentee ballots among counties—purportedly
caused by the Secretary's September 11, 2020, and September
28, 2020, guidance—violates the Equal-Protection Clause
because voters will be treated differently simply because of
the county in which they reside. The Court, however, finds no
equal-protection violation in this context.
The Secretary's guidance about which Plaintiffs complain
is uniform and nondiscriminatory. It was issued to all
counties and applies equally to all counties, and by extension,
voters. Because the uniform, nondiscriminatory guidance
is rational, it is sound under the Equal-Protection Clause.
See Gamza, 619 F.2d at 453 (5th Cir. 1980) (“We must,
therefore, recognize a distinction between state laws and
patterns of state action that systematically deny equality in
voting, and episodic events that, despite non-discriminatory
laws, may result in the dilution of an individual's vote.
Unlike systematically discriminatory laws, isolated events
that adversely affect individuals are not presumed to be a
violation of the equal protection clause.”) (citation omitted).
Indeed, the guidance merely instructs counties to abide by the
Election Code—an instruction to follow the law is certainly
rational and related to an obviously rational government
interest.
*61 In fact, if there is any unequal application now, it is
caused by those counties that are not following the guidance
and are going above and beyond the Election Code to impose
a signature-comparison requirement. That claim, though, is

For these reasons, Plaintiffs’ equal-protection claim falls
short.

2. Different treatment between in-person ballots and mailin ballots also does not violate federal equal-protection
rights.
Plaintiffs also assert a second federal equal-protection claim
on the grounds that the Election Code, by not requiring
signature comparison for mail-in and absentee ballots, treats
such ballots differently than in-person ballots (which require
signature comparisons). Plaintiffs argue that this is an
unconstitutionally arbitrary and unequal treatment. The Court
disagrees.
It is well-settled that states may employ in-person voting,
absentee voting, and mail-in voting and each method need not
be implemented in exactly the same way. See Hendon, 710
F.2d at 181 (“A state may employ diverse methods of voting,
and the methods by which a voter casts his vote may vary
throughout the state.”)
“Absentee voting is a fundamentally different process from
in-person voting, and is governed by procedures entirely
distinct from in-person voting procedures.” ACLU of New
Mexico v. Santillanes, 546 F.3d 1313, 1320 (10th Cir. 2008)
(citations omitted). It is an “obvious fact that absentee
voting is an inherently different procedure from in-person
voting.” Indiana Democratic Party v. Rokita, 458 F. Supp.
2d 775, 830-31 (S.D. Ind. 2006). Because in-person voting

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2030 Case 2:20-cv-01771-PP Filed 12/09/20 Page 49 of 63 Document 78-3

49

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

is “inherently different” from mail-in and absentee voting,
the procedures for each need not be the same. See, e.g.,
Santillanes, 546 F.3d at 1320-21 (“[B]ecause there are clear
differences between the two types of voting procedures, the
law's distinction is proper.”); Rokita, 458 F. Supp. 2d at 831
(“[I]t is axiomatic that a state which allows for both inperson and absentee voting must therefore apply different
requirements to these two groups of voters.”); Billups, 439
F. Supp. 2d at 1356-57 (“[A]bsentee voting and in-person
voting are inherently different processes, and both processes
use different standards, practices, and procedures.”).
Plaintiffs argue that while absentee and mail-in voting “is
a fundamentally different process from in-person voting,”
Defendants have “no justification in this instance to create
such an arbitrary and disparate rule between absentee/mail-in
voters and in-person voters.” [ECF 509, p. 51]. Not so.
*62 Because of the “inherent” differences between inperson voting and mail-in and absentee voting, Pennsylvania's
requirement for signature comparison for in-person ballots,
but not mail-in and absentee ballots, is not arbitrary. By
way of example, Secretary Boockvar articulated several valid
reasons why Pennsylvania implements different verification
procedures for mail-in and absentee voters versus in-person
voters. [ECF 504-12; ECF 549-2].

For example, Secretary Boockvar notes the concern with nonhandwriting-expert election officials comparing signatures,
without uniform standards. [ECF 549-2, pp. 19-20, ¶ 68].
She also notes that people's signatures can change over time,
due to natural and unavoidable occurrences, like injuries,
arthritis, or the simple passage of time. [Id.]. Such reasons
are valid and reasonable. See Boockvar, ––– A.3d at ––––,
2020 WL 5554644, at *34 (Wecht, J. concurring) (“Signature
comparison is a process fraught with the risk of error and
inconsistent application, especially when conducted by lay
people.”).
Secretary Boockvar further asserts that signature comparison
is justified for in-person voting, but not mail-in or absentee
voting, because the in-person voter is notified of his or
her signature deficiency, and afforded an opportunity to
cure. [ECF 549-2, pp. 19-20, ¶¶ 66-68 (explaining that inperson voters can be immediately notified of the signature
deficiency, but mail-in/absentee voters cannot) ]. Secretary
Boockvar's justifications are consistent with the Election
Code's framework.

In her deposition, Secretary Boockvar explained that for
in-person voters, the only possible verification is signature
comparison and verification. [ECF 504-12, 55:19-56:19].
This is because, unlike mail-in and absentee voters who must
apply for a ballot, in-person voters may simply show up at
the polls on Election Day and vote. In contrast, for mailin and absentee voters, there are several verification steps
implemented before the voter's mail-in/absentee ballot is
counted, such as checking their application and their drivers’
license number or social security number. [Id. at 56:8-19].
Thus, counties don't need to resort to a signature comparison
to identify and verify the mail-in or absentee voter.

When a voter votes in person, he or she signs the voter's
certificate, and the election official immediately, in the voter's
presence, verifies the signature. 25 P.S. § 3050(a.3)(1)-(2). If
the election official finds the signature to be problematic, the
in-person voter is told as such. Id. at § 3050(a.3)(2). Notably,
however, the in-person voter may still cast a ballot. Id. (“[I]f
the signature on the voter's certificate ... shall not be deemed
authentic by any of the election officers, such elector shall not
be denied the right to vote for that reason[.]”). The in-person
voter whose signature is questioned must, after casting the
ballot, “produce at least one qualified elector of the election
district as a witness, who shall make affidavit of his identity or
continued residence in the election district.” Id. at § 3050(d).
Thus, the in-person voter whose signature is not verified is
immediately notified, is still allowed to cast a ballot, and is
given the opportunity to remedy the signature-deficiency.

This is important, as Defendants and Intervenors present
valid concerns about the uniformity and equality of signature
comparisons, in part, due to the technical nature of signature
analysis, the subjective underpinnings of signature analysis,
and the variety of reasons that signatures can naturally change
over time. [ECF 549-2, pp. 19-20, ¶ 68; ECF 549-9, p. 20,
¶¶ 63-64]. Such factors can reasonably justify not requiring
a signature comparison when the elector is not physically
present.

*63 In contrast, a voter who casts a mail-in or absentee
ballot cannot be afforded this opportunity. Absentee and mailin ballots are kept in “sealed or locked containers” until they
are “canvassed by the county board of elections.” 25 P.S. §
3146.8(a). The pre-canvassing and canvassing cannot begin
until Election Day. Id. at § 3146.8(g)(1.1)-(2). As such, the
absentee and mail-in ballots cannot be verified until Election
Day, regardless of when the voter mails the ballot. Further,
even if there were sufficient time, a voter cannot cure these

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2031 Case 2:20-cv-01771-PP Filed 12/09/20 Page 50 of 63 Document 78-3

50

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

types of deficiencies on their mail-in or absentee ballot.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *20
(“[A]lthough the Election Code provides the procedures for
casting and counting a vote by mail, it does not provide for
the “notice and opportunity to cure” procedure sought by
Petitioner.”).
Therefore, if mail-in and absentee ballots were subject to
signature comparison, an election official—who is unstudied
in the technical aspects of signature comparison—could deem
a voter's signature problematic and not count the ballot, which
would effectively disenfranchise that voter. Unlike the inperson voter, the mail-in or absentee voter may not know that
his or her signature was deemed inauthentic, and thus may be
unable to promptly cure the deficiency even if he or she were
aware.
Accordingly, the Court concludes that the inherent differences
and opportunities afforded to in-person voters compared to
mail-in and absentee voters provides sufficient reason to treat
such voters differently regarding signature comparison. The
Court concludes that the lack of signature comparison for
mail-in and absentee ballots is neither arbitrary, nor burdens
Plaintiffs’ equal-protection rights.
For these reasons, the Court will dismiss Plaintiffs’ federal
equal-protection claims related to signature comparison.

3. The Election Code provisions related to signature
comparison satisfy Anderson-Burdick.
Finally, even assuming the Election Code's absence of
a signature-comparison requirement imposes some burden
on Plaintiffs’ constitutional rights, Plaintiffs’ constitutional
claims still fail.
As discussed above with respect to Defendants’ drop-box
implementation, Anderson-Burdick does not apply neatly to
this claim either. This is because Plaintiffs aren't challenging
a specific regulation affecting their right to vote, but are
instead challenging the lack of a restriction on someone else's
right to vote. This makes both the burden difficult to assess
and also the state's interests in not doing something more
abstract. As such, the Court finds that the proper application
of the Anderson-Burdick framework here includes weighing
the burden involving Plaintiffs’ risk of vote dilution against
the state's interests and overall plan in preventing against
voter fraud, including with respect to forged mail-in ballots.

Weighing these considerations compels a conclusion that
there is no constitutional violation here. With respect to any
burden on Plaintiffs’ right to vote, that burden is slight, at best.
A failure to engage in a signature comparison may, crediting
Plaintiffs’ evidence, increase the risk of voter fraud. But even
then, this remains a largely speculative concern. This burden
too is lessened by the numerous other regulations imposed
by the Election Code, including the detailed verification
procedure as to the information on mail-in ballots (discussed
above), and the deterrence furthered by criminal sanctions for
those engaging in such voter fraud.
Against these burdens, the Commonwealth has precise and
weighty interests in verifying ballot applications and ballots
in an appropriate manner to ensure that they are accurate.
As discussed above, the Commonwealth determined that the
risk of disenfranchising mail-in and absentee voters, did not
justify signature comparison for those voters. [ECF 549-2,
pp. 19-20, ¶¶ 66-69]. Unlike for in-person voters, there
are other means of identifying and verifying mail-in and
absentee voters, such as having to specifically apply for a
mail-in or absentee ballot and provide various categories
of identifying information. [ECF 504-12, 55:19-56:19]; 25
P.S. §§ 3146.2(b), 3150.12(b). And ultimately, due to the
slight burden imposed on Plaintiffs, Pennsylvania's regulatory
interests in a uniform election pursuant to established
procedures is sufficient to withstand scrutiny. Timmons, 520
U.S. at 358, 117 S.Ct. 1364.
*64 The General Assembly opted not to require
signature comparisons for mail-in and absentee ballots
and applications. And as previously discussed, absent
extraordinary reasons to, the Court is not to second-guess the
legislature.
IV. Defendants and Intervenors are entitled to summary
judgment on Plaintiffs’ as-applied, federal constitutional
challenge to the county-residency requirement for poll
watchers.
Plaintiffs next take exception with the provision of the
Election Code that restricts a registered voter from serving as
a poll watcher outside the county of his or her residence. [ECF
461, ¶ 217].
Plaintiffs argue that “[a]s applied to the 2020 General
Election, during the midst of the COVID-19 pandemic,
Pennsylvania's residency requirement for watchers violates
equal protection.” [ECF 509, p. 58]. That's because, according

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2032 Case 2:20-cv-01771-PP Filed 12/09/20 Page 51 of 63 Document 78-3

51

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

to Plaintiffs, the “current pandemic severely challenges the
ability of parties to staff watchers[.]” [Id. at p. 60]. And
not having enough poll watchers in place “puts into danger
the constitutionally-guaranteed right to a transparent and
undiluted vote,” [id. at p. 68], by “fostering an environment
that encourages ballot fraud or tampering,” [ECF 461, ¶
256]. As such, Plaintiffs believe that the county residency
requirement “is not rationally connected or reasonably related
to any interest presented by the Commonwealth.” [ECF 509,
p. 63].
Defendants and Intervenors have a markedly different view.
As an initial matter, the Democratic Intervenors argue that
Plaintiffs “are precluded from relitigating their claim that the
Commonwealth lacks a constitutionally recognized basis for
imposing a county-residence restriction for poll watchers”
based on the doctrine articulated in England v. Louisiana
State Bd. of Med. Examiners, 375 U.S. 411, 84 S.Ct. 461,
11 L.Ed.2d 440 (1964). [ECF 529, p. 16]. That doctrine
requires that after a federal court has abstained under
Pullman, the plaintiff must expressly reserve the right to
litigate any federal claims in federal court while litigating
state-law issues in state court. England, 375 U.S. at 419,
421-22, 84 S.Ct. 461. Defendants and Intervenors contend
that Plaintiffs (specifically, the Trump Campaign, the RNC,
and the Republican Party) failed to do so in the proceedings
before the Pennsylvania Supreme Court.
And if the England doctrine doesn't bar this claim, Defendants
and Intervenors argue that “Plaintiffs’ as-applied challenge
simply fails to state a constitutional claim.” See, e.g.,
[ECF 547, p. 65]. They believe that the county-residency
requirement does not infringe on a fundamental right or
regulate a suspect classification (such as race, sex, or
national origin). [Id.]. As a result, the Commonwealth need
only provide a rational basis for the requirement, which
Defendants and Intervenors believe the Commonwealth has
done. [Id.].
After carefully reviewing the record and considering the
parties’ arguments and evidence, the Court finds that the
England doctrine does not bar Plaintiffs’ ability to bring this
claim. Even so, after fully crediting Plaintiffs’ evidence, the
Court agrees with Defendants and Intervenors that Plaintiffs’
as-applied challenge fails on the merits.

*65 In England, the Supreme Court established that after a
federal court abstains under Pullman, “if a party freely and
without reservation submits his federal claims for decision by
the state courts, litigates them there, and has them decided
there, then ... he has elected to forgo his right to return to
the District Court.” 375 U.S. at 419, 84 S.Ct. 461. To reserve
those rights, a plaintiff forced into state court by way of
abstention must inform the state court that he is exposing the
federal claims there only to provide the proper context for
considering the state-law questions. Id. at 421, 84 S.Ct. 461.
And that “he intends, should the state court[ ] hold against
him on the question of state law, to return to the District Court
for disposition of his federal contentions.” Id. Essentially, in
England, the Supreme Court created a special doctrine of res
judicata for Pullman abstention cases.
The Democratic Intervenors argue that because none of the
three Plaintiffs who participated in the Pennsylvania Supreme
Court case as either intervenors or amici “reserved the right
to relitigate [Plaintiffs’ poll-watcher claim] in federal court,”
they are now “precluded” from doing so. [ECF 529, p. 17].
The Court is not convinced that this doctrine bars Plaintiffs’
claim for at least two reasons.
First, in its original abstention decision, the Court noted that
“[n]one of Plaintiffs’ poll-watching claims directly ask the
Court to construe an ambiguous state statute.” [ECF 409, p.
24]. Instead, these claims resided in a Pullman gray area,
because they were only indirectly affected by other unsettled
state-law issues. In light of that, the Court finds that the
England doctrine was not “triggered,” such that Plaintiffs
needed to reserve their right to return to federal court to
litigate the specific as-applied claim at issue here.
Second, even if it were triggered, not all of the Plaintiffs here
were parties in the Pennsylvania Supreme Court case, and
only one (the Republican Party) was even given intervenor
status. But even the Republican Party, acting as an intervenor,
did not have an opportunity to develop the record or present
evidence relevant to its as-applied challenge. Thus, this claim
wasn't “fully litigated” by any of the Plaintiffs, which is
a necessary condition for the claim to be barred under the
England doctrine. Cf. Bradley v. Pittsburgh Bd. of Educ., 913
F.2d 1064, 1073 (3d Cir. 1990) (explaining that a litigant “may
not relitigate an issue s/he fully and unreservedly litigated in
state court”).

A. The England doctrine does not bar Plaintiffs’ federal
challenge to the county-residency requirement.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2033 Case 2:20-cv-01771-PP Filed 12/09/20 Page 52 of 63 Document 78-3

52

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Thus, Plaintiffs are not precluded by the England doctrine
from bringing their remaining as applied poll-watcher claim.
The Court will now address the claim on the merits.

Or. v. Legal Servs. Corp., 608 F.3d 1084, 1096 (9th Cir.
2010) (“The underlying constitutional standard, however, is
no different [in an as-applied challenge] th[a]n in a facial
challenge.”).

B. The county-residency requirement, as applied to the
facts presented and the upcoming general election, does
not violate the U.S. Constitution.
Originally, Plaintiffs raised a facial challenge to the countyresidency requirement under 25 P.S. § 2687. That is,
Plaintiffs first took the position that there was no conceivable
constitutional application of the requirement that an elector be
a resident of the county in which he or she seeks to serve. But,
as Plaintiffs’ concede, that facial challenge is no longer viable
in light of the Pennsylvania Supreme Court's recent decision.
[ECF 448, p. 10]. As a result, Plaintiffs now focus solely
on raising an as-applied challenge to the county-residency
requirement.

“In other words, how one must demonstrate the statute's
invalidity remains the same for both type of challenges,
namely, by showing that a specific rule of law, usually a
constitutional rule of law, invalidates the statute, whether in
a personal application or to all.” Brooklyn Legal Servs. Corp.
v. Legal Servs. Corp., 462 F.3d 219, 228 (2d Cir. 2006),
abrogated on other grounds by Bond v. United States, 564
U.S. 211, 131 S.Ct. 2355, 180 L.Ed.2d 269 (2011).

“[T]he distinction between facial and as-applied challenges is
not so well defined that it has some automatic effect or that
it must always control the pleadings and disposition in every
case involving a constitutional challenge.” Citizens United v.
Fed. Election Comm'n, 558 U.S. 310, 331, 130 S.Ct. 876, 175
L.Ed.2d 753 (2010).
At a fundamental level, a “facial attack tests a law's
constitutionality based on its text alone and does not consider
the facts or circumstances of a particular case. United States
v. Marcavage, 609 F.3d 264, 273 (3d Cir. 2010). By contrast,
an “as-applied attack” on a statute “does not contend that a
law is unconstitutional as written but that its application to a
particular person under particular circumstances deprived that
person of a constitutional right.” Id. The distinction between
facial and an as-applied attack, then, “goes to the breadth of
the remedy employed by the Court, not what must be pleaded
in a complaint.” Citizens United, 558 U.S. at 331, 130 S.Ct.
876; see also Bruni v. City of Pittsburgh, 824 F.3d 353, 362
(3d Cir. 2016) (“The distinction between facial and as-applied
constitutional challenges, then, is of critical importance in
determining the remedy to be provided).
*66 Because the distinction is focused on the available
remedies, not the substantive pleading requirements, “[t]he
substantive rule of law is the same for both challenges.”
Edwards v. D.C., 755 F.3d 996, 1001 (D.C. Cir. 2014); see
also Pursuing Am.’s Greatness v. Fed. Election Comm'n, 831
F.3d 500, 509, n.5 (D.C. Cir. 2016) (“Indeed, the substantive
rule of law is the same for both as-applied and facial First
Amendment challenges.”) (cleaned up); Legal Aid Servs. of

In determining whether a state election law violates the
U.S. Constitution, the Court must “first examine whether
the challenged law burdens rights protected by the First and
Fourteenth Amendments.” Patriot Party of Allegheny Cnty.
v. Allegheny Cnty. Dep't of Elections, 95 F.3d 253, 258 (3d
Cir. 1996). “Where the right to vote is not burdened by a
state's regulation on the election process, ... the state need
only provide a rational basis for the statute.” Cortés, 218 F.
Supp. 3d at 408. The same is true under an equal protection
analysis. “If a plaintiff alleges only that a state treated him
or her differently than similarly situated voters, without a
corresponding burden on the fundamental right to vote, a
straightforward rational basis standard of review should be
used.” Obama, 697 F.3d at 428 (6th Cir. 2012); see also
Biener, 361 F.3d at 214-15 (applying rational basis where
there was no showing of an “infringement on the fundamental
right to vote.”); Donatelli, 2 F.3d at 515 (“A legislative
classification that does not affect a suspect category or
infringe on a fundamental constitutional right must be upheld
against equal protection challenge if there is any reasonably
conceivable state of facts that could provide a rational basis
for the classification.” (cleaned up)).
But where the law imposes at least some burden on protected
rights, the court “must gauge the character and magnitude of
the burden on the plaintiff and weigh it against the importance
of the interests that the state proffers to justify the burden.”
Patriot Party, 95 F.3d at 258 (citations omitted).
Consistent with the Pennsylvania Supreme Court's recent
decision, but now based on a complete record, this Court
finds that the county-residency requirement for poll watching
does not, as applied to the particular circumstances of this
election, burden any of Plaintiffs’ fundamental constitutional
rights, and so a deferential standard of review should apply.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2034 Case 2:20-cv-01771-PP Filed 12/09/20 Page 53 of 63 Document 78-3

53

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

See Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *30.
Under a rational-basis review and considering all the relevant
evidence before the Court, the county-residency requirement
is rational, and thus constitutional. But even if the requirement
burdened the right to vote, that burden is slight—and under
the Anderson-Burdick test, the Commonwealth's interests in
a county-specific voting system, viewed in the context of its
overall polling-place security measures, outweigh any slight
burden imposed by the county-residency restriction.

1. The county-residency requirement neither burdens
a fundamental right, including the right to vote, nor
discriminates based on a suspect classification.
*67 At the outset, “there is no individual constitutional right
to serve as a poll watcher[.]” Boockvar, ––– A.3d at ––––,
2020 WL 5554644, at *30 (citing Cortés, 218 F. Supp. 3d
at 408); see also Dailey v. Hands, No. 14-423, 2015 WL
1293188, at *5 (S.D. Ala. Mar. 23, 2015) (“[P]oll watching is
not a fundamental right protected by the First Amendment.”);
Turner v. Cooper, 583 F. Supp. 1160, 1162 (N.D. Ill. 1983)
(“Plaintiffs have cited no authority ..., nor have we found any,
that supports the proposition that [the plaintiff] had a first
amendment right to act as a poll watcher.”).

requirement doesn't make the actual act of casting a vote
any harder. See [ECF 524-24, 67:1-6]. Indeed, at least one of
the plaintiffs here, Representative Joyce, testified that he was
unaware of anyone unable to cast his ballot because of the
county-residency requirement for poll watchers [Id.].
Finally, Plaintiffs’ claim that Pennsylvania's “poll watching
system” denies them “equal access” to the ability to observe
polling places in the upcoming election does not, on its own,
require the Court to apply anything other than rational-basis
scrutiny. [ECF 551, p. 75]. To the extent Plaintiffs are denied
equal access (which discussed below, as a matter of evidence,
is very much in doubt), it isn't based on their membership in
any suspect classification.
For a state law to be subject to strict scrutiny, it must not
only make a distinction among groups, but the distinction
must be based on inherently suspect classes such as race,
gender, alienage, or national origin. See City of Cleburne
v. Cleburne Living Ctr., 473 U.S. 432, 439-40, 105 S.Ct.
3249, 87 L.Ed.2d 313 (1985). Political parties are not such a
suspect class. Greenville Republican Party, 824 F. Supp. 2d
at 669 (“[T]his court is unfamiliar with, and Plaintiffs have
not cited, any authority categorizing political parties as an
inherently suspect class.”) Likewise, “[c]ounty of residence is
not a suspect classification warranting heightened scrutiny[.]”
Short, 893 F.3d at 679.

“State law, not the Federal Constitution, grants individuals the
ability to serve as poll watchers and parties and candidates
the authority to select those individuals.” Cortés, 218 F. Supp.
3d at 414; see also Boockvar, ––– A.3d at ––––, 2020 WL
5554644, at *30 (the right to serve as a poll watcher “is
conferred by statute”); Tiryak v. Jordan, 472 F. Supp. 822,
824 (E.D. Pa. 1979) (“The number of poll-watchers allowed,
the manner of their appointment, their location within the
polling place, the activities permitted and the amount of
compensation allowed are all dictated by [25 P.S. § 2687].”).
Given the nature of the right, “[i]t is at least arguable that
the [Commonwealth of Pennsylvania] could eliminate the
position of poll watcher” without offending the constitution.
Cotz v. Mastroeni, 476 F. Supp. 2d 332, 364 (S.D.N.Y.
2007). In fact, one neighboring state—West Virginia—has
eliminated poll watchers. W. Va. Code Ann. § 3-1-37; W. Va.
Code Ann. § 3-1-41.

Plaintiffs don't dispute this. [ECF 509, p. 65 (“To be clear,
the right at issue here is the right of candidates and political
parties to participate in an election where the process is
transparent and open to observation and the right of the voters
to participate in such election.” (emphasis in original)) ].
Rather, Plaintiffs’ theory as to how the county-residency
requirement burdens the right to vote is based on the same
threat of vote dilution by fraud that they have advanced with
their other claims. In other words, Plaintiffs’ claim that the
county-residency requirement for poll watchers limits the
ability to find poll watchers, which, in turn, limits the ability
for poll watchers to detect fraud and ballot tampering. [ECF
461, ¶¶ 256-57]. The resulting fraudulent or destroyed ballots
cause the dilution of lawfully cast ballots. [ECF 509, pp.
64-68].

Nor does the county-residency requirement hinder the
“exercise of the franchise.” Cortés, 218 F. Supp. 3d at 408. It
doesn't in any way limit voters’ “range of choices in the voting
booth”—voters can still “cast ballots for whomever they
wish[.]” Id. And, as Plaintiffs admit, the county-residency

*68 Thus, based on this theory, to establish the burden
flowing from the county-residency restriction, Plaintiffs must
show (1) the county-residency requirement prevents them
from recruiting enough registered Republican poll watchers
in every county, (2) the absence of these Republican poll

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2035 Case 2:20-cv-01771-PP Filed 12/09/20 Page 54 of 63 Document 78-3

54

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

watchers creates a material risk of increased fraud and ballot
tampering, and (3) this risk of fraud and ballot tampering will
dilute the value of honestly cast votes.
There are both factual and legal problems fatal to Plaintiffs’
vote-dilution theory in this context. Factually, Plaintiffs’
evidence, accepted as true, fails to establish that they cannot
find enough poll watchers because of the county-residency
requirement. But even if they made that factual showing,
the inability to find poll watchers still does not burden any
recognized constitutional right in a way that would necessitate
anything more than deferential review.

2. Plaintiffs’ evidence does not establish any factual
predicate for their theory.
Even accepting as true Plaintiffs’ version of events, Plaintiffs
have not established that the county-residency requirement is
responsible for an inability to find enough poll watchers for
at least two reasons.
First, Plaintiffs’ evidence stops short of demonstrating any
actual shortfall of desired poll watchers.
For example, in his declaration, James J. Fitzpatrick, the
Pennsylvania Director for Election Day Operations for the
Trump Campaign, stated only that the “Trump Campaign is
concerned that due to the residency restriction, it will not
have enough poll watchers in certain counties.” [ECF 504-2,
¶ 25 (emphasis added) ]. Notably, however, Mr. Fitzpatrick,
even when specifically asked during his deposition, never
identified a single county where the Trump Campaign has
actually tried and failed to recruit a poll watcher because
of the county-residency requirement. See, e.g., [ECF 528-14,
261:21-25] (“Q: Which counties does the Trump campaign or
the RNC contend that they will not be able to obtain what you
refer to as full coverage of poll watchers for the November
2020 election? A: I'm not sure. I couldn't tell you a list.”).
Nor do any of Plaintiffs’ other witness declarations establish
an actual, inability to recruit poll watchers in any specific
county. Representative Reschenthaler stated only that he was
“concerned” that he “will not be able to recruit enough
volunteers from Greene County to watch the necessary polls
in Greene County.” [ECF 504-6, ¶ 12].
Representative Kelly stated that he was “likely to have
difficulty getting enough poll watchers from within Erie

County to watch all polls within that county on election
day.” [ECF 504-5, ¶ 16]. “Likely difficulty” isn't the same
as an “actual inability.” That aside, the declaration doesn't
provide any basis for Representative Kelly's assessment of
this “likely difficulty.” Nowhere does he detail the efforts he
took (e.g., the outreach he tried, prospective candidates he
unsuccessfully recruited, and the like), nor did he explain why
those efforts aren't likely to succeed in the future.
The same goes for Representative Thompson's declaration.
Representative Thompson stated that during some
unspecified prior elections, unidentified parties and
campaigns did not “always find enough volunteers to serve as
poll watchers in each precinct.” [ECF 504-4, ¶ 20]. But this
undetailed statement doesn't help Plaintiffs’ cause, because it
doesn't identify the elections during which this was a problem,
the parties and campaigns affected by a lack of poll watchers,
or the precincts for which no poll watcher could be found.
*69 Representative Joyce's declaration doesn't even express
a “concern” about “likely difficulty” in recruiting poll
watchers. He simply stated his belief that “[p]oll watchers
play a very important role in terms of protecting the integrity
of the election process[.]” [ECF 504-7, ¶ 11]. While he may be
right, it has no bearing on whether Plaintiffs can find enough
people to play that “very important role.”
Indeed, Plaintiffs’ prediction that they will “likely” have
difficulty finding poll watchers is belied by the uncontested
Pennsylvania voter registration statistics for 2019 that they
included as an exhibit to their summary-judgment brief. [ECF
504-34]. Those statistics suggest that there is no shortage of
registered Republican voters who are qualified to serve as
poll watchers. [Id.]. Even in the three specific counties in
which Plaintiffs warn that “Democratic registered voters outnumber ... their Republican counterparts” (i.e., Philadelphia,
Delaware, and Centre), there are still significant numbers
of registered Republicans. See [ECF 504-34 (Philadelphia –
118,003; Delaware – 156,867; and Centre – 42,903) ]. And
only a very small percentage of the registered Republicans
would be needed to fill all the necessary poll watcher
positions in those allegedly problematic counties. See, e.g.,
Cortés, 218 F. Supp. 3d at 410 (noting that, in 2016,
the Republican Party “could staff the entirety of the poll
watcher allotment in Philadelphia county with just 4.1% of
the registered Republicans in the county.”). While Plaintiffs
argue that these statistics don't show the number of registered
Republicans willing to serve as a poll watcher, the Court is
hard pressed to see, nor do Plaintiffs show, how among the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2036 Case 2:20-cv-01771-PP Filed 12/09/20 Page 55 of 63 Document 78-3

55

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

tens—or hundreds—of thousands of registered Republicans
in these counties, Plaintiffs are unable to find enough poll
workers.20
Plaintiffs have not presented any evidence that would
explain how, despite these numbers, they will have a hard
time finding enough poll watchers. In fact, Plaintiffs’ own
expert, Professor Lockerbie, admits that “the Democratic and
Republican parties might be able to meet the relevant criteria
and recruit a sufficient population of qualified poll watchers
who meet the residency requirements[.]” [ECF 504-20, ¶ 16].
Professor Lockerbie's report makes clear, and Plaintiffs
appear to agree, that the county-residency requirement only
potentially burdens other, “minor” political parties’ ability
to recruit enough poll watchers. [ECF 509, p. 61 (citing
ECF 504-20, ¶¶ 16-17) ]. Regardless, any burden on these
third parties is not properly before the Court. They are not
parties to this litigation, and so the Court doesn't know their
precise identities, whether they have, in fact, experienced any
difficulty in recruiting poll watchers, or, more fundamentally,
whether they even want to recruit poll watchers at all.21
*70 Additionally, Plaintiffs failed to present evidence that
connects the county-residency requirement to their inability
to find enough poll watchers. To succeed on their theory
Plaintiffs cannot just point to difficulty recruiting poll
watchers, they need to also show that “Section 2687(b) is
responsible for their purported staffing woes.” Cortés, 218 F.
Supp. 3d at 410. Plaintiffs fail to show this, too.
Plaintiffs argue that the ongoing COVID-19 pandemic greatly
reduces the number of people who would be willing to serve
as a poll watcher, which further exacerbates the alleged
problem caused by the county-residency requirement. [ECF
509, p. 60]. The primary problem with this argument, though,
is that Plaintiffs have not presented any evidence to support
it. Plaintiffs have not put forward a statement from a single
registered voter who says they are unwilling to serve as a poll
watcher due to concerns about contracting COVID-19.
Despite this shortcoming, the Court also acknowledges that
COVID-19 generally has made it more difficult to do anything
in person, and it is entirely plausible that the current pandemic
will limit Plaintiffs from recruiting poll watchers to man
polling places on election day. But that is likely true for
just about every type of election rule and regulation. For
example, the effects of the ongoing pandemic coupled with
the requirement that the poll watcher be a registered voter

(a requirement that unquestionably narrows the pool of
potential candidates) would also make it harder to recruit
poll watchers. There is no basis to find that the current
public-health conditions, standing alone, render the countyresidency requirement irrational or unconstitutional.
To bolster their concerns over COVID-19, Plaintiffs point
to Democratic Nat'l Committee v. Bostelmann, No. 20-249,
––– F.Supp.3d ––––, 2020 WL 5627186 (W.D. Wis. Sept. 21,
2020), where the court there enjoined Wisconsin's statute that
requires that each election official (i.e., poll worker) be an
elector of the county in which the municipality is located. That
case is distinguishable in at least two important ways.
First, Bostelmann concerned poll workers, not poll watchers.
Id. at ––––, 2020 WL 5627186, at *7. The difference
between the two is significant. Poll workers are a more
fundamental and essential aspect of the voting process.
Without poll workers, counties cannot even open polling
sites, which creates the possibility that voters will be
completely disenfranchised. In fact, in Bostelmann, the
plaintiffs presented evidence that Milwaukee was only able
to open 5 of its normal 180 polling places. Id. A failure to
provide voters a place to vote is a much more direct and
established constitutional harm than the one Plaintiffs allege
here.
Second, the plaintiffs in Bostelmann actually presented
evidence that they were unable to find the poll workers they
needed due to the confluence of the COVID-19 pandemic and
the challenged restriction. Id. As discussed above, Plaintiffs
here have presented no such evidence.
To succeed on summary judgment, Plaintiffs need to move
beyond the speculative concerns they offer and into the realm
of proven facts. But they haven't done so on two critical fronts
—they haven't shown an actual inability to find the necessary
poll watchers, or that such an inability is caused by the countyresidency requirement. Because Plaintiffs have not pointed
to any specific “polling place that Section 2687(b) prevents
[them] from staffing with poll watchers,” Plaintiffs’ theory of
burden is doomed at launch. Cortés, 218 F. Supp. 3d at 409.

3. Even if Plaintiffs could establish a factual predicate for
their theory, it would fail as a matter of law.
*71 As the Pennsylvania Supreme Court concluded last
month, Plaintiffs’ “speculative claim that it is ‘difficult’ for

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2037 Case 2:20-cv-01771-PP Filed 12/09/20 Page 56 of 63 Document 78-3

56

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

both parties to fill poll watcher positions in every precinct,
even if true, is insufficient to transform the Commonwealth's
uniform and reasonable regulation requiring that poll
watchers be residents of the counties they serve into a nonrational policy choice.” Boockvar, ––– A.3d at ––––, 2020

McLaughlin v. North Carolina Bd. of Elections, 65 F.3d 1215,
1227 (4th Cir. 1995) (concluding that a ballot access law “fails
the Anderson balancing test only if it also does in fact burden
protected rights”).

WL 5554644, at *30 (emphasis added).22 The fundamental
constitutional principles undergirding this finding are sound.

*72 “Under rational-basis review, the challenged
classification must be upheld ‘if there is any reasonably
conceivable state of facts that could provide a rational basis
for the classification.’ ” Donatelli, 2 F.3d at 513 (quoting
FCC v. Beach Commc'ns, Inc., 508 U.S. 307, 313, 113 S.Ct.
2096, 124 L.Ed.2d 211 (1993)). “This standard of review is
a paradigm of judicial restraint.” FCC, 508 U.S. at 314, 113
S.Ct. 2096. It “is not a license for courts to judge the wisdom,
fairness, or logic of legislative choices.” Id. at 313, 113 S.Ct.
2096. Nor is it the Court's “place to determine whether the
[General Assembly's decisions] were the best decisions or
even whether they were good ones.” Donatelli, 2 F.3d at 518.

Plaintiffs’ only alleged burden on the right to vote is
that Defendants’ lawful imposition of a county-residency
requirement on poll watching will result in an increased risk
of voter irregularities (i.e., ballot fraud or tampering) that will,
in turn, potentially cause voter dilution. While vote dilution
is a recognized burden on the right to vote in certain contexts,
such as when laws are crafted that structurally devalue one
community's or group of people's votes over another's, there
is no authority to support a finding of burden based solely
on a speculative, future possibility that election irregularities
might occur. See, e.g., Minnesota Voters, 720 F.3d at 1033
(affirming dismissal of claims “premised on potential harm in
the form of vote dilution caused by insufficient pre-election
verification of EDRs’ voting eligibility and the absence of
post-election ballot rescission procedures”); Common Cause
Rhode Island v. Gorbea, 970 F.3d 11, 15 (1st Cir. 2020)
(rejecting the claim that a ballot witness signature requirement
should not be enjoined during a pandemic because it would
allegedly increase the risk of voter fraud and put Republican
candidates at risk); Cook Cnty. Rep. Party v. Pritzker, No.
20-4676, 2020 WL 5573059, at *4 (N.D. Ill. Sept. 17, 2020)
(denying a motion to enjoin a law expanding the deadline to
cure votes because plaintiffs did not show how voter fraud
would dilute the plaintiffs’ votes).
Without a recognized burden on the right to vote, Plaintiffs’
“argument that the defendants did not present an adequate
justification is immaterial.” Green Party of Tennessee v.
Hargett, No. 16-6299, 2017 WL 4011854, at *4 (6th Cir.
May 11, 2017). That's because the Court need not apply the
Anderson-Burdick framework, and its intermediate standards,
in this situation. See Donatelli, 2 F.3d at 514 & n.10.
Instead, just as the Pennsylvania Supreme Court held, the
Commonwealth here need only show “that a rational basis
exists [for the county-residency requirement] to be upheld.
Boockvar, ––– A.3d at ––––, 2020 WL 5554644, at *30
(citing Cortes, 218 F. Supp. 3d at 408); see also Voting
for Am., Inc. v. Andrade, 488 F. App'x 890, 899 (5th Cir.
2012) (applying rational basis review as opposed to the
Anderson-Burdick balancing test because state election law
did not implicate or burden specific constitutional rights);

Applying this deferential standard of review, the
Pennsylvania Supreme Court found that given Pennsylvania's
“county-based scheme for conducting elections, it is
reasonable that the Legislature would require poll watchers,
who serve within the various counties of the state, to be
residents of the counties in which they serve.” Boockvar, –––
A.3d at ––––, 2020 WL 5554644, at *30 (citing Cortés, 218
F. Supp. 3d at 409). The Court agrees.
There are multiple reasons for this. As Secretary Boockvar
advises, “[b]y restricting poll watchers’ service to the counties
in which they actually reside, the law ensures that poll
watchers should have some degree of familiarity with the
voters they are observing in a given election district.” [ECF
549-2, p. 22, ¶ 78]. In a similar vein, Intervenors’ expert,
Dr. Barreto, in his report, states that, voters are more likely
to be comfortable with poll watchers that “they know and
they recognize from their area.” [ECF 524-1, ¶40 (“Research
in political science suggests that voters are much more
comfortable and trusting of the process when they know or are
familiar with poll workers who are from their community.”) ].
When poll watchers come from the community, “there is
increased trust in government, faith in elections, and voter
turnout[.]” [Id.].
At his deposition, Representative Kelly agreed with this
idea: “Yeah, I think – again, depending how the districts
are established, I think people are probably even more
comfortable with people that they – that they know and they
recognize from their area.” [ECF 524-23, 111:21-25].

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2038 Case 2:20-cv-01771-PP Filed 12/09/20 Page 57 of 63 Document 78-3

57

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Whether requiring poll watchers to be residents of the county
in which they will serve is the best or wisest rule is not
the issue before the Court. The issue is whether that rule is
reasonable and rationally advances Pennsylvania's legitimate
interests. This Court, like multiple courts before it, finds that
it does.

4. Plaintiffs’ poll-watcher claim fails under the
Anderson-Burdick framework.
Even if rational-basis review did not apply and Plaintiffs
had established a burden on their right to vote, their claim
nonetheless fails under the Anderson-Burdick framework.
Viewing Plaintiffs’ evidence in the best possible light, at most,
the county-residency requirement for poll watching places
only an indirect, ancillary burden on the right to vote through
an elevated risk of vote dilution.
Against this slight burden, the Commonwealth has sound
interests in imposing a county-residency requirement,
including, as noted above, local familiarity with rules,
regulations, procedures, and the voters. Beyond this, in
assessing the Commonwealth's interest in imposing the
county-based restriction, that interest must be viewed in the
overall context of the Commonwealth's security measures
involving polling places that are designed to prevent against
fraud and vote dilution.
As the court in Cortés recognized, “while poll watchers may
help guard the integrity of the vote, they are not the Election
Code's only, or even best, means of doing so.” 218 F. Supp.
3d at 404.
*73 Each county has the authority to investigate fraud and
report irregularities to the district attorney. 25 P.S. § 2642(i).
Elections in each district are conducted by a multimember
election board, which is comprised of an election judge, a
majority inspector, and a minor inspector. 25 P.S. § 2671.
Each voting district may also use two overseers of election,
who are appointed from different political parties by the
Pennsylvania Courts of Common Pleas, and “carry greater
authority than poll watchers.” Cortés, 218 F. Supp. 3d at 403
(citing 25 P.S. § 2685). “Election overseers have the right
to be present with the officers of an election ‘within the
enclosed space during the entire time the ... election is held.”
Id. “Poll watchers have no such right,” they must “remain
‘outside the enclosed space’ where ballots are counted or

voting machines canvassed.” Id. (citing 25 P.S. § 2687(b)).
Election overseers can also challenge any person offering to
vote, while poll watchers have no such authority. 25 P.S. §
2687. For these reasons, concerns “over potential voter fraud
—whether perpetrated by putative electors or poll workers
themselves—appear more effectively addressed by election
overseers than poll watchers[.]” Id. at 406.
Plaintiffs complain that poll watchers may not be present
during the pre-canvass and canvass meetings for absentee
and mail-in ballots. But the Election Code provides that
“authorized representatives” of each party and each candidate
can attend such canvassing. 25 P.S. § 3146.8(g)(1.1), (2).
That means if, for example, 15 Republican candidates appear
on ballots within a particular county (between both the state
and federal elections), there could be up to 16 “authorized
representatives” related to the Republican Party (one for each
candidate and one for the party as a whole) present during
canvassing. Adding poll watchers to that mix would just be
forcing unnecessary cooks into an already crowded kitchen.23
See [ECF 549-2, p. 23, ¶ 83 (“If every certified poll watcher
within a county was permitted to attend the pre-canvass
meeting, the elections staff could be overwhelmed by the vast
numbers of poll watchers, and the pre-canvassing process
could become chaotic and compromised.”) ].
*74 Further, Secretary Boockvar testified that Pennsylvania
has adopted new voting systems that will provide an
additional layer of security. [ECF 524-27, 237:21-238:11].
That is, there will now be a paper trail in the form of verifiable
paper ballots that will allow voters to confirm their choice,
and the state recently piloted a new program that will help
ensure that votes can be properly verified. [Id.].
On balance, then, it is clear that to the extent any burden
on the right to vote exists, it is minimal. On the other hand,
the Commonwealth's interest in a county-specific voting
system, including with county-resident poll watchers, is
rational and weighty, particularly when viewed in the context
of the measures that the Commonwealth has implemented
to prevent against election fraud at the polls. As such,
under the flexible Anderson-Burdick standard, Plaintiffs have
failed to establish that the county-residency requirement is
unconstitutional.

5. The Court will continue to abstain from deciding where
the Election Code permits poll watching to occur.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2039 Case 2:20-cv-01771-PP Filed 12/09/20 Page 58 of 63 Document 78-3

58

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

Plaintiffs also appear to challenge any attempts to limit
poll watching to “monitoring only in-person voting at the
polling place on Election Day.” [ECF 461, ¶ 254]. That
is, in their proposed order accompanying their Motion for
Summary Judgement, Plaintiffs seek a declaration that they
are “permitted to have watchers present at all locations where
voters are registering to vote, applying for absentee or mailin ballots, voting absentee or mail-in ballots, and/or returning
or collecting absentee or mail-in ballots, including without
limitation any satellite or early voting sites established by any
county board of elections.” [ECF 503-1, ¶ 3].
Plaintiffs also argue that Secretary Boockvar's October 6,
2020, guidance expressly, and unlawfully, prohibits poll
watchers from being present at county election offices,
satellite offices, and designated ballot-return sites. [ECF 571].
This challenge, however, is directly related to the unsettled
state-law question of whether drop boxes and other satellite
locations are “polling places” as envisioned under the
Election Code. If they are, then Plaintiffs may be right in that
poll watchers must be allowed to be present. However, the
Court previously abstained under Pullman in addressing this
“location” claim due to the unsettled nature of the state-law
issues; and it will continue to do so. [ECF 459, p. 5 (“The
Court will continue to abstain under Pullman as to Plaintiffs’
claim pertaining to the notice of drop box locations and, more
generally, whether the ‘polling place’ requirements under the
Election Code apply to drop-box locations. As discussed in
the Court's prior opinion, this claim involves unsettled issues
of state law.”) ].
Moreover, Plaintiffs have filed a lawsuit in the Court of
Common Pleas of Philadelphia to secure access to drop box
locations for poll watchers. The state court held that satellite
ballot-collection locations, such as drop-box locations, are
not “polling places,” and therefore poll watchers are not
authorized to be present in those places. [ECF 573-1, at
p. 12]. The Trump Campaign immediately filed a notice
of appeal of that decision. Regardless of what happens on
appeal, Plaintiffs appear to be on track to obtain resolution
of that claim in state court. [ECF 549-22]. Although this isn't
dispositive, it does give the Court comfort that Plaintiffs will
be able to seek timely resolution of these issues, which appear
to be largely matters of state law. See Barr v. Galvin, 626
F.3d 99, 108 n.3 (1st Cir. 2010) (“Though the existence of a
pending state court action is sometimes considered as a factor
in favor of abstention, the lack of such pending proceedings
does not necessarily prevent abstention by a federal court.”).

V. The Court will decline to exercise supplemental
jurisdiction over Plaintiffs’ state-constitutional claims.
*75 In addition to the federal-constitutional claims
addressed above, Plaintiffs assert violations of the
Pennsylvania Constitution in Counts III, V, VII, and IX of
the Second Amended Complaint. Because the Court will be
dismissing all federal-constitutional claims in this case, it will
decline to exercise supplemental jurisdiction over these statelaw claims.
Under 28 U.S.C. § 1367(c)(3), a court “may decline to
exercise supplemental jurisdiction over state law claims
if it has dismissed all claims over which it has original
jurisdiction[.]” Stone v. Martin, 720 F. App'x 132, 136
(3d Cir. 2017) (cleaned up). “It ‘must decline’ to exercise
supplemental jurisdiction in such circumstances ‘unless
considerations of judicial economy, convenience, and fairness
to the parties provide an affirmative justification for
[exercising supplemental jurisdiction].’ ” Id. (quoting Hedges
v. Musco, 204 F.3d 109, 123 (3d Cir. 2000) (emphasis in
original)).
Courts have specifically applied this principle in cases raising
federal and state constitutional challenges to provisions
of the state's election code. See, e.g., Silberberg v. Bd.
of Elections of New York, 272 F. Supp. 3d 454, 480–
81 (S.D.N.Y. 2017) (“Having dismissed plaintiffs’ First
and Fourteenth Amendment claims, the Court declines to
exercise supplemental jurisdiction over plaintiffs’ state law
claims.”); Bishop v. Bartlett, No. 06-462, 2007 WL 9718438,
at *10 (E.D.N.C. Aug. 18, 2007) (declining “to exercise
supplemental jurisdiction over the state constitutional claim”
following dismissal of all federal claims and recognizing
“the limited role of the federal judiciary in matters of state
elections” and that North Carolina's administrative, judicial,
and political processes provide a better forum for plaintiffs to
seek vindication of their state constitutional claim), aff'd, 575
F.3d 419 (4th Cir. 2009).
Beyond these usual reasons to decline to exercise
supplemental jurisdiction over the state-constitutional claims,
there are two additional reasons to do so here.
First, the parties do not meaningfully address the stateconstitutional claims in their cross-motions for summary
judgment, effectively treating them as coextensive with
the federal-constitutional claims here. The Pennsylvania
Supreme Court, however, has held that Pennsylvania's “Free

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2040 Case 2:20-cv-01771-PP Filed 12/09/20 Page 59 of 63 Document 78-3

59

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

and Equal Elections” Clause is not necessarily coextensive
with the 14th Amendment. See League of Women Voters v.
Commonwealth, 645 Pa. 1, 178 A.3d 737, 812-813 (2018)
(referring to the Pennsylvania Free and Equal Elections
Clause as employing a “separate and distinct standard” than
that under the 14th Amendment to the U.S. Constitution).
Given the lack of briefing on this issue and out of deference
to the state courts to interpret their own state constitution, the
Court declines to exercise supplemental jurisdiction.
Second, several Defendants have asserted a defense of
sovereign immunity in this case. That defense does not apply
to Plaintiffs’ federal-constitutional claims under the Ex parte
Young doctrine. See Acosta v. Democratic City Comm., 288
F. Supp. 3d 597, 627 (E.D. Pa. 2018) (“Here, the doctrine
of Ex parte Young applies to Plaintiffs’ constitutional claims
for prospective injunctive and declaratory relief, and therefore
the First and Fourteenth Amendment claims are not barred
by the Eleventh Amendment. Secretary Cortés, as an officer
of the Pennsylvania Department of State, may be sued in his
individual and official capacities ‘for prospective injunctive
and declaratory relief to end continuing or ongoing violations
of federal law.’ ”). But sovereign immunity may apply to the

state-law claims, at least those against Secretary Boockvar.
The possibility of sovereign immunity potentially applying
here counsels in favor of declining supplemental jurisdiction
to decide the state-law claims.
*76 As such, all state-constitutional claims will be dismissed
without prejudice.

CONCLUSION
For the foregoing reasons, the Court will enter judgment
in favor of Defendants and against Plaintiffs on all federalconstitutional claims, decline to exercise supplemental
jurisdiction over the remaining state-law claims, and dismiss
all claims in this case. Because there is no just reason for
delay, the Court will also direct entry of final judgment under
Federal Rule of Civil Procedure 54(b). An appropriate order
follows.
All Citations
--- F.Supp.3d ----, 2020 WL 5997680

Footnotes

1
2
3
4
5

6

“Drop boxes” are receptac es s m ar to U.S. Posta Serv ce ma boxes. They are made of meta , and have a ock ng
mechan sm, storage compartment, and an nsert or s ot nto wh ch a voter can nsert a ba ot. See generally [ECF 549-9].
Intervenors nc ude the Pennsy van a State Democrat c Party, the League of Women Voters, the NAACP Pennsy van a
State Conference, Common Cause Pennsy van a, C t zens for Pennsy van a s Future, the S erra C ub, the Pennsy van a
A ance for Ret red Amer cans, and severa aff ated nd v dua s of these organ zat ons.
As noted above, P a nt ffs and Mr. R dd emoser use the term “voter fraud” to mean “ ega vot ng”—i.e., voter fraud s
any pract ce that v o ates the E ect on Code. For purposes of the Court s dec s on and ana ys s of P a nt ffs’ vote-d ut on
c a ms, the Court accepts th s def n t on.
The procedure for absentee ba ots and app cat ons arge y resemb es the procedure for ma - n ba ots and app cat ons.
If the app cat on s approved, the approva s “f na and b nd ng,” subject on y to cha enges “on the grounds that the
app cant was not a qua f ed e ector.” 25 P.S. § 3150.12b(a)(2). An unqua f ed e ector wou d be, for examp e, an nd v dua
who has not “been a c t zen of the Un ted States at east one month.” Pa. Const. Art. 7, § 1; see also 25 P.S. § 2602(t)
(def n ng “qua f ed e ector” as “any person who sha possess a of the qua f cat ons for vot ng now or hereafter prescr bed
by the Const tut on of th s Commonwea th, or who, be ng otherw se qua f ed by cont nued res dence n h s e ect on d str ct,
sha obta n such qua f cat ons before the next ensu ng e ect on”).
In her summary-judgment br ef, Secretary Boockvar argues that P a nt ffs’ as-app ed cha enge to Pennsy van a s countyres dency requ rement s unr pe. [ECF 547, pp. 60-63]. The Secretary reasons that P a nt ffs have not shown suff c ent
ev dence that they are harmed by the county-res dency requ rement. Th s argument s d rected more towards a ack of
stand ng and a ack of ev dence to support the c a m on the mer ts. As the suff c ency of the ev dence of harm s a separate
ssue from r peness (wh ch s more concerned w th t m ng), the Court does not f nd P a nt ffs’ as-app ed cha enge to the
county-res dency requ rement unr pe. See Progressive Mountain Ins. Co. v. Middlebrooks, 805 F. App x 731, 734 (11th
C r. 2020) (“The quest on of r peness frequent y bo s down to the same quest on as quest ons of Art c e III stand ng, but
the d st nct on between the two s that stand ng focuses [on] whether the type of njury a eged s qua tat ve y suff c ent to
fu f the requ rements of Art c e III and whether the p a nt ff has persona y suffered that harm, whereas r peness centers
on whether that njury has occurred yet.” (c eaned up) (c tat ons om tted)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2041 Case 2:20-cv-01771-PP Filed 12/09/20 Page 60 of 63 Document 78-3

60

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

7

8

9

10

11

In the r br ef ng, the part es focused on the “capab e of repet t on yet evad ng rev ew” except on to the mootness doctr ne.
The Court, however, does not f nd that t needs to re y on th s except on. Near ng the eve of the e ect on, t s c ear that
Defendants ntend to engage n the conduct that P a nt ffs assert s ega and unconst tut ona . Thus, the c a ms are
present y ve, and are not “evad ng rev ew” n th s c rcumstance.
Wh e Ru e 65(d)(2)(C) states that an njunct on b nds “[non-part es] who are n act ve concert or part c pat on” w th the
part es or the part es’ agents, the Court does not f nd that Ru e 65(d) he ps the county boards. As d scussed, the county
boards manage the e ect ons and mp ement the e ectora procedures. Wh e the Court cou d enjo n Secretary Boockvar,
for examp e, from us ng unmanned drop boxes, each nd v dua county e ect on board cou d st use unmanned drop
boxes on the r own. Do ng so wou d not resu t n the count es be ng n “act ve concert or part c pat on” w th Secretary
Boockvar, as each county s ndependent y manag ng the e ectora process w th n the r county nes. See Marshak v.
Treadwell, 595 F.3d 478, 486 (3d C r. 2009) (“[N]on-part es gu ty of a d ng or abett ng or act ng n concert w th a named
defendant or h s pr vy n v o at ng the njunct on may be he d n contempt.” (c eaned up) (c tat ons om tted)). In other
words, each county e ect ons board wou d not be “a d ng or abett ng” Secretary Boockvar n v o at ng the njunct on (wh ch
wou d mp cate Ru e 65(d)(2)(C)); rather, the count es wou d be ut z ng the r ndependent statutory author ty to manage
e ect ons w th n the r county nes.
As ev dence of the county boards’ nd spensab ty, one court recent y found that the fa ure to jo n oca e ect on off c a s
n an e ect on case can make the harm a eged not “redressab e.” It wou d be a catch-22 to say that county boards
cannot be jo ned to th s case as necessary part es, but then d sm ss the case for ack of stand ng due to the boards’
absence. Cf. Jacobson v. Florida Secretary of States, 974 F.3d 1236, –––– – ––––, 2020 WL 5289377, at *11-12 (11th
C r. Sept. 3, 2020) (“The prob em for the [p a nt ffs] s that F or da aw tasks the [county] Superv sors, ndependent y of the
Secretary, w th pr nt ng the names of cand dates on ba ots n the order prescr bed by the ba ot statute. ... The Secretary
s respons b e on y for cert fy ng to the superv sor of e ect ons of each county the names of persons nom nated ... Because
the Secretary d dn t do (or fa to do) anyth ng that contr buted to [p a nt ffs’] harm, the voters and organ zat ons cannot
meet Art c e III s traceab ty requ rement.” (c eaned up)).
The organ zat ona P a nt ffs a so ra se certa n assoc at ona and organ zat ona stand ng arguments, assert ng that they
represent the r members’ nterests. The assoc at ona stand ng arguments are der vat ve of the r members’ nterests. That
s, because the Court has found no concrete njury suffered by the nd v dua voters, wh ch wou d nc ude the members
of the organ zat ona P a nt ffs, there are no separate grounds to estab sh stand ng for these organ zat ons. See United
Food & Commercial Workers Union Local 751 v. Brown Grp., Inc., 517 U.S. 544, 553, 116 S.Ct. 1529, 134 L.Ed.2d 758
(1997) (an organ zat on on y has stand ng to sue on beha f of ts members when “ ts members wou d otherw se have
stand ng to sue n the r own r ght”) (c tat on om tted).
See, also, e.g., Dudum v. Arntz, 640 F.3d 1098, 1117 (9th C r. 2011) (“If the aspects of the C ty s restr cted IRV scheme
Dudum cha enges mpose any burdens on voters’ const tut ona r ghts to vote, they are m n ma at best.”); Common
Cause/Georgia v. Billups, 554 F.3d 1340, 1354–55 (11th C r. 2009) (“The d str ct court determ ned that the burden
mposed on Georg a voters who ack photo dent f cat on was not undue or s gn f cant, and we agree.... The NAACP and
voters are unab e to d rect th s Court to any adm ss b e and re ab e ev dence that quant f es the extent and scope of the
burden mposed by the Georg a statute.”); Soules v. Kauaians for Nukolii Campaign Comm., 849 F.2d 1176, 1183 (9th
C r. 1988) (“Appe ants c a m that Hawa s absentee vot ng aw fa s to proh b t the so c tat on, exam nat on and de very
of absentee ba ots by persons other than the voters’ and that such act v t es occurred dur ng the spec a e ect on ... We
agree w th the d str ct court that the Hawa absentee ba ot statute and the regu at ons adopted under t adequate y protect
the secrecy and ntegr ty of the ba ot. A though Hawa has not adopted a regu at on to prevent the de very of ba ots
by persons other than the voter, the Hawa regu at ons go nto great deta n the r e aborat on of procedures to prevent
tamper ng w th the ba ots.”); McLain v. Meier, 637 F.2d 1159, 1167 (8th C r. 1980) (“[A] though ba ot format has an effect
on the fundamenta r ght to vote, the effect s somewhat attenuated.”); Nemes v. Bensinger, ––– F. Supp. 3d ––––, ––––,
2020 WL 3402345, at *13 (W.D. Ky. June 18, 2020) (“The burden mposed by the contract on to one po ng p ace s
modest, and the dent f ed groups are afforded var ous other means under the vot ng p ans to eas y and effect ve y avo d
d senfranch sement. As a ready d scussed, Defendants have offered ev dence of the substant a government nterest n
mp ement ng vot ng p ans that prov de for a free and fa r e ect on wh e attempt ng to m n m ze the spread of COVID-19.”);
Paralyzed Veterans of Am. v. McPherson, No. 06-4670, 2008 WL 4183981, at *22 (N.D. Ca . Sept. 9, 2008) (“P a nt ff
Boh ke s sted burdens re y on specu at ve r sk or the anc ary effects of th rd party ass stance, but not on ev dence of
any concrete harm. Such specu at ons or effects are nsuff c ent under Supreme Court and N nth C rcu t precedent to
demonstrate a severe burden on the fundamenta r ght to vote.”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2042 Case 2:20-cv-01771-PP Filed 12/09/20 Page 61 of 63 Document 78-3

61

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

12

13

14

15

16
17

The part es do not spec f ca y br ef the e ements of an E ect ons-C ause c a m. Th s s typ ca y a c a m brought by a
state eg s ature, and the Court has doubts that th s s a v ab e theory for P a nt ffs to assert. See Lance v. Coffman, 549
U.S. 437, 442, 127 S.Ct. 1194, 167 L.Ed.2d 29 (2007). Regard ess, f state aw does not requ re s gnature compar son,
then there s no d fference between the Secretary s gu dance and the E ect on Code, and the E ect ons-C ause c a m
necessar y fa s.
Severa Defendants and Intervenors have asked th s Court to absta n from dec d ng th s ssue on the bas s of Pullman.
As th s Court prev ous y d scussed, a court can absta n under Pullman f three factors are met: “(1) [the d spute] requ res
nterpretat on of “unsett ed quest ons of state aw,”; (2) perm tt ng reso ut on of the unsett ed state- aw quest ons by state
courts wou d “obv ate the need for, or substant a y narrow the scope of adjud cat on of the const tut ona c a ms”; and
(3) an “erroneous construct on of state aw wou d be d srupt ve of mportant state po c es[.]” ” [ECF 409, p. 3 (quot ng
Chez Sez, 945 F.2d at 631) ]. But f, on the other hand, the answer to the state aw d spute s “c ear and unm stakab e,”
abstent on s not warranted. [Id. at p. 15 (c t ng Chez Sez, 945 F.2d at 632) ]. Here, the Court conc udes (as d scussed
be ow) that the E ect on Code s c ear that s gnature compar son s not requ red and further, that P a nt ffs’ compet ng
nterpretat on s not p aus b e. As such, the Court cannot absta n under Pullman.
The Pullman ana ys s does not change s mp y because Secretary Boockvar has f ed a “K ng s Bench” pet t on w th the
Pennsy van a Supreme Court, request ng that court to c ar fy whether the E ect on Code mandates s gnature compar son
of ma - n and absentee ba ots and app cat ons. [ECF 556, p. 11; ECF 557]. The fact that such a pet t on was f ed does
not change th s Court s conc us on that the E ect on Code s c ear. The Pullman factors rema n the same. And they are
not met here.
The Secretary s September 11, 2020, gu dance, stated that the “Pennsy van a E ect on Code does not author ze the
county board of e ect ons to set as de returned absentee or ma - n ba ots based so e y on s gnature ana ys s by the
county board of e ect ons.” [ECF 504-24, p. 3, § 3]. S m ar y, the Secretary s September 28, 2020, gu dance stated that
“E ect on Code does not perm t county e ect on off c a s to reject app cat ons or voted ba ots based so e y on s gnature
ana ys s. ... No cha enges may be made to ma - n and absentee ba ots at any t me based on s gnature ana ys s.” [ECF
504-25, p. 9, § 5.2].
The E ect on Code s def n t on of “proof of dent f cat on” n fu prov des:
The words “proof of dent f cat on” sha mean ... For a qua f ed absentee e ector ... or a qua f ed ma - n e ector ...:
. n the case of an e ector who has been ssued a current and va d dr ver s cense, the e ector s dr ver s cense number;
. n the case of an e ector who has not been ssued a current and va d dr ver s cense, the ast four d g ts of the
e ector s Soc a Secur ty number;
. n the case of an e ector who has a re g ous object on to be ng photographed, a copy of a document that sat sf es
paragraph (1) [i.e., “a va d-w thout-photo dr ver s cense or a va d-w thout-photo dent f cat on card ssued by the
Department of Transportat on”]; or
v. n the case of an e ector who has not been ssued a current and va d dr ver s cense or Soc a Secur ty number, a
copy of a document that sat sf es paragraph (2) [i.e., “a document that shows the name of the nd v dua to whom the
document was ssued and the name substant a y conforms to the name of the nd v dua as t appears n the d str ct
reg ster; shows a photograph of the nd v dua to whom the document was ssued; nc udes an exp rat on date and s
not exp red, except (A) ... or (B) ...; and was ssued by” the federa , state, or mun c pa government, or an “accred ted
Pennsy van a pub c or pr vate nst tut on of h gher earn ng [or] “a Pennsy van a are fac ty.”].
25 P.S. § 2602(z.5)(3).
Wh e e ect on off c a s must engage n s gnature compar son for n-person voters, that requ rement s exp c t y requ red
by the E ect on Code, un ke for ma - n ba ots. 25 P.S. § 3050(a.3)(2). And as d scussed be ow, n-person voters, un ke
ma - n voters, are mmed ate y not f ed f the r s gnatures are def c ent.
P a nt ffs a so argue that s gnature compar son for ma - n and absentee ba ots s supported by h stor ca case aw. [ECF
552, pp. 58-59]. P a nt ffs c te to two cases from the 1960s that the Court of Common P eas dec ded. [Id.]. The f rst,
Appeal of Fogleman, conc uded that under the then-app cab e e ect on aw, an absentee voter had to s gn a dec arat on
to show that he was a proper res dent who had not a ready voted n that e ect on. 36 Pa. D. & C.2d 426, 427 (Pa. Ct.
Comm. P . 1964). Regard ng the voter s s gnature, the court s mp y stated, “[ ]f the e ector fa s or refuses to attach h s or
her s gnature, then such e ector has not comp eted the dec arat on as requ red by aw of a voters.” Id. Thus, no s gnature
compar son or ver f cat on was mp cated there; rather, the court s mp y stated that the dec arat on must be s gned (i.e.,
comp eted). The second case P a nt ffs c te, In re Canvass of Absentee Ballots of Gen. Election [ECF 552, pp. 58-59],
arose from nd v dua , post-e ect on cha enges to 46 nd v dua absentee ba ots. 39 Pa. D. & C.2d 429, 430 (Pa. Ct.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2043 Case 2:20-cv-01771-PP Filed 12/09/20 Page 62 of 63 Document 78-3

62

Ex. 3

Donald J. Trump for President, Inc. v. Boockvar, --- F.Supp.3d ---- (2020)
2020 WL 5997680

18
19
20

21

22

23

Comm. P . 1965). Thus, a un versa and mandatory s gnature-compar son requ rement was not at ssue there, un ke
what P a nt ffs contest here. Th s Court f nds ne ther case persuas ve.
Th s dent fy ng nformat on on a ba ot app cat on nc udes much of the same nformat on express y sted for what a voter
must prov de n n t a y reg ster ng to vote. 25 Pa. C.S.A. § 1327(a) (stat ng that the “off c a voter reg strat on app cat on”
sha request the app cant s: fu name, address of res dence (and ma ng address f d fferent), and date of b rth).
The count es that ntend to compare and ver fy s gnatures n the upcom ng e ect on nc ude at east the fo ow ng count es:
Cambr a, E k, Frank n, Jun ata, M ff n, Su van, Susquehanna, and Wyom ng. [ECF 504-1].
P us, these f gures do not even te the who e story because they do not take nto account the hundreds of thousands of
voters who are reg stered to other part es who cou d a so conce vab y serve as po watchers for the Trump Campa gn and
the cand date P a nt ffs. [504-34]. Wh e that may not be the dea scenar o for P a nt ffs, they concede there s noth ng n the
E ect on Code that m ts them to recru t ng on y reg stered voters from the Repub can Party. [ECF 528-14, 267:23-268:1
(Q: And you don t have to be a reg stered Repub can to serve as a po watcher for the Trump campa gn, do you? A:
No.) ]. To that po nt, the Trump Campa gn ut zed at east two Democrats among the po watchers t reg stered n the
pr mary. [ECF 528-15, P001648].
To the extent that P a nt ffs are attempt ng to br ng the r c a m on beha f of these th rd part es (wh ch s unc ear), they
wou d ack stand ng to do so. Ord nar y, “a t gant must assert h s or her own ega r ghts and nterests and cannot rest
a c a m of re ef on the ega r ghts or nterests of th rd part es.” Powers v. Ohio, 499 U.S. 400, 410, 111 S.Ct. 1364, 113
L.Ed.2d 411 (1991). The on y t me a t gant can br ng an act on on beha f of a th rd party s when “three mportant cr ter a
are sat sf ed.” Id. “The t gant must have suffered an njury n fact,’ thus g v ng h m or her a suff c ent y concrete nterest’
n the outcome of the ssue n d spute; the t gant must have a c ose re at on to the th rd party; and there must ex st
some h ndrance to the th rd party s ab ty to protect h s or her own nterest.” Id. at 410-11, 111 S.Ct. 1364 (c eaned up).
P a nt ffs cannot sat sfy the second or th rd cr ter a.
P a nt ffs c a m that they “have a c ose re at onsh p w th these m nor part es such that t w act as an effect ve advocate
for the m nor part es.” [ECF 551, p. 30]. It s hard to see how P a nt ffs can be sa d to have a c ose re at onsh p w th r va
po t ca part es who are the r d rect adversar es n the upcom ng e ect on.
P a nt ffs a so argue that these “m nor part es are h ndered from protect ng the r own nterests, part cu ar y n th s act on
when there are no m nor party ntervenors.” [Id.]. But that doesn t ho d water e ther. Just because these other part es
have not asked to ntervene, t does not mean they were ncapab e of nterven ng or seek ng re ef e sewhere. Indeed,
these part es and the r cand dates have demonstrated t me and aga n that they can ra se the r own cha enges to e ect on
aws when they so des re, nc ud ng by f ng su t n federa d str ct court. See, e.g., Stein v. Cortés, 223 F. Supp. 3d 423
(E.D. Pa. 2016) (Green Party Pres dent a cand date J Ste n seek ng recount); Libertarian Party of Conn. v. Merrill, No.
20-467, 2020 WL 3526922 (D. Conn. June 27, 2020) (seek ng to enjo n Connect cut s ba ot access ru es that requ red
m nor party cand dates to pet t on the r way onto the ba ot); Green Party of Ark. v. Martin, 649 F.3d 675 (8th C r. 2011)
(cha eng ng Arkansas’ ba ot access aws).
The S erra C ub Intervenors argue th s shou d end the ana ys s. [ECF 542, p. 14 (“Even as app ed,’ P a nt ffs’ c a m
has a ready been rejected”) ]. Wh e the Court f nds the Pennsy van a Supreme Court s apparent ru ng on P a nt ffs’ asapp ed cha enge nstruct ve, t s not outcome determ nat ve. That s because the Pennsy van a Supreme Court d d not
have the benef t of the fu ev dent ary record that the Court has here.
After the br ef ng on the cross-mot ons for summary judgment had c osed, on October 6, 2020, Secretary Boockvar
ssued add t ona gu dance, wh ch P a nt ffs then ra sed w th the Court the fo ow ng day. [ECF 571]. Th s new gu dance
conf rms that po watchers cannot be present dur ng the pre-canvass ng and canvass ng of ma - n ba ots. It a so makes
c ear that wh e the author zed representat ve can be present, the representat ve cannot make any cha enges to the
ba ots. The Court f nds that th s new gu dance has m n ma re evance to the current d sputes at ssue here. The scope
of dut es of a representat ve s not before the Court. Of so e re evance here s whether th s new gu dance changes how
th s Court we ghs the burdens and benef ts of the county-res dency restr ct on for po watchers. The Court f nds that the
representat ve s nab ty to cha enge ma - n ba ots does appear to prov de ess protect on to P a nt ffs; but n the grand
e ect on scheme, part cu ar y n ght of the ro e of the e ect on overseers, the Court does not f nd the new gu dance to
mater a y upset the Commonwea th s nterests n ts overa e ect on-mon tor ng p an.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2044 Case 2:20-cv-01771-PP Filed 12/09/20 Page 63 of 63 Document 78-3

63

Ex. 3

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

2020 WL 6437668
Only the Westlaw citation is currently available.
United States District Court,
S.D. Texas, Houston Division.

Steven HOTZE, M.D., Wendell
Champion, Hon. Steve Toth,
and Sharon Hemphill, Plaintiffs,
v.
Chris HOLLINS, in his official capacity
as Harris County Clerk, Defendant.
Civil Action No. 4:20-cv-03709
|
Signed 11/02/2020
Attorneys and Law Firms
Jared Ryker Woodfill, Woodfill Law Firm P.C., Houston, TX,
for Plaintiffs.
Richard Warren Mithoff, Jr., Mithoff Law Firm, Kenneth
Royce Barrett, KBR Law, Houston, TX, Charles Stein Siegel,
Waters & Kraus, LLP, Dallas, TX, S. Nasim Ahmad, The
Ahmad Law Firm, The Woodlands, TX, for Defendant.

ORDER
Andrew S. Hanen, United States District Judge
*1 The Court has before it the Motion for Preliminary
Injunction (Doc. No. 3) filed by Plaintiffs Steven Hotze,
M.D., Wendell Champion, Hon. Steve Toth, and Sharon
Hemphill (collectively, “Plaintiffs”), the Response in
Opposition (Doc. No. 22) filed by Defendant Chris Hollins
in his official capacity as Harris County Clerk (hereinafter,
“Defendant”), and various Motions to Intervene filed on
behalf of forty-eight individuals and/or entities. The Court
also has before it amicus curiae briefs filed by the Texas
Coalition of Black Democrats, The Lincoln Project, the
Libertarian Party of Texas, Joseph R. Straus, III, and election
law professor, Benjamin L. Ginsberg.

I.

Due to the time constraints given the issue involved, this
Court cannot issue the formal opinion that this matter
deserves. Consequently, given those confines, this Order
must suffice. The Court first notes that it appreciates the
participation of all counsel involved and the attention each
gave to this important topic on such short notice.
This Court's overall ruling is that the Plaintiffs do not have
standing (as explained below). While this ruling is supported
by general Equal Protection and Election Clause cases, it
is somewhat without precedent with regard to the Plaintiffs
(or Intervenors) who are actual candidates for elected office.
Therefore, the Court, in anticipation of an appeal or petition
for writ of mandamus and knowing that the appellate court
could draw a distinction in that regard and hold that standing
exists, has gone further to indicate what its ruling would have
been in that case.

II.
The Court finds that Plaintiffs lack standing to sue. Federal
courts must determine whether they have jurisdiction before
proceeding to the merits. Steel Co. v. Citizens for Better
Environment, 523 U.S. 83, 94–95 (1998). Article III of
the Constitution limits federal jurisdiction to “Cases” and
“Controversies.” One component of the case or controversy
requirement is standing. Lujan v. Defenders of Wildlife,
504 U.S. 555, 560–61 (1992). The Supreme Court has
repeatedly held that an individual plaintiff raising only a
generalized grievance about government does not meet the
Article III requirement of a case or controversy. Id. at 573–
74. This Court finds that the Plaintiffs here allege only a
“generalized grievance about the conduct of government.”
Lance v. Coffman, 549 U.S. 437, 442 (2007).
The Plaintiffs' lack of a particularized grievance is fatal to
their claim under the Equal Protection Clause. “The rule
against generalized grievances applies with as much force
in the equal protection context as in any other.” U.S. v.
Hays, 515 U.S. 737, 743 (1995). Plaintiffs' general claim that
Harris County's election is being administered differently than
Texas's other counties does not rise to the level of the sort
of particularized injury that the Supreme Court has required
for constitutional standing in elections cases. See id.; Gill v.
Whitford, 138 S. Ct. 1916, 1933 (2018) (no standing in equal
protection case when alleged injury involved “group political
interests” and not “individual legal rights”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2045

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 4 Document 78-4

1

Ex. 4

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

*2 Further, it is unclear that individual plaintiffs have
standing to assert claims under the Elections Clause at all.
The Supreme Court has held that individual plaintiffs, like
those here, whose only asserted injury was that the Elections
Clause had not been followed, did not have standing to assert
such a claim. See Lance, 549 U.S. at 442. Conversely, the
Court has held that the Arizona Legislature did have standing
to allege a violation of the Elections Clause as it was “an
institutional plaintiff asserting an institutional injury.” Ariz.
State Legislature v. Ariz. Indep. Redistricting Comm'n, 576
U.S. 787, 802 (2015). In addition, the Supreme Court has
also held plaintiffs had such standing when they were state
senators whose “votes had been completely nullified” by
executive action. Id. at 803 (citing Raines v. Byrd, 521 U.S.
811, 822–23 (1997)). These cases appear to stand for the
proposition that only the state legislature (or a majority of the
members thereof) have standing to assert a violation of the
Elections Clause.

the fact they cannot individualize their damage beyond
their rightful feeling that an election should be conducted
lawfully. Neither this Court's research nor the briefing of
the parties have brought forth any precedent to support
this concept under either of the two pleaded causes of
action based upon claimed violations of Equal Protection
or the “Elections Clause.” Given the timing of this case
and the impact that such a ruling might have, this Court
finds it prudent to follow the existing precedent.

III.
If the Court had plaintiffs with standing, it would have
denied in part and granted in part the motion for preliminary

166, 176–77.1

injunction.2 A preliminary injunction is an “extraordinary
remedy” that should only be granted if the movant has
“clearly carried the burden of persuasion” on all four factors.
Lake Charles Diesel, Inc. v. Gen. Motors Corp., 328 F.3d
192, 196 (5th Cir. 2003). The movant, however, “need not
prove his case.” Lakedreams v. Taylor, 932 F.2d 1103, 1109
(5th Cir. 1991) (citing H & W Indus. v. Formosa Plastics
Corp., 860 F.2d 172, 179 (5th Cir. 1988)). Before a court
will grant a preliminary injunction, the movants must clearly
show “(1) a substantial likelihood that they will prevail on the
merits, (2) a substantial threat that they will suffer irreparable
injury if the injunction is not granted, (3) that their substantial
injury outweighs the threatened harm to the party whom they
seek to enjoin, and (4) granting the preliminary injunction
will not disserve the public interest.” City of El Cenizo v.
Texas, 890 F.3d 164, 176 (5th Cir. 2018) (quoting Tex. Med.
Providers Performing Abortion Servs. v. Lakey, 667 F.3d 570,
574 (5th Cir. 2012)); see also Winter v. NRDC, 555 U.S. 7,
20 (2008) (“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and that
an injunction is in the public interest.”). “The purpose of a
preliminary injunction is always to prevent irreparable injury
so as to preserve the court's ability to render a meaningful
decision on the merits.” Canal Auth. of Fla. v. Callaway, 489
F.2d 567, 576 (5th Cir. 1974).

1

2

The Court finds that the Plaintiffs here are akin to those
in Lance v. Coffman, in which the Supreme Court held
that private citizens, whose primary alleged injury was that
the Elections Clause was not followed, lacked standing to
bring a claim under the Elections Clause. 549 U.S. at 442.
To summarize the Plaintiffs' primary argument, the alleged
irreparable harm caused to Plaintiffs is that the Texas Election
Code has been violated and that violation compromises the
integrity of the voting process. This type of harm is a
quintessential generalized grievance: the harm is to every
citizen's interest in proper application of the law. Lujan, 504
U.S. at 573–74; Fairchild v. Hughes, 258 U.S. 126, 129
(1922) (holding that the right, possessed by every citizen, to
require that the Government be administered according to the
law does not entitle a private citizen to institute a lawsuit
in federal court). Every citizen, including the Plaintiff who
is a candidate for federal office, has an interest in proper
execution of voting procedure. Plaintiffs have not argued that
they have any specialized grievance beyond an interest in the
integrity of the election process, which is “common to all
members of the public.” United States v. Richardson, 418 U.S.

This Court finds the answer to this question to be
particularly thorny, given that some of the Plaintiffs are
actual candidates who have put in time, effort, and money
into campaigning, to say nothing of the blood, sweat, and
tears that a modern campaign for public office entails.
This Court would readily understand if some appellate
court finds that these Plaintiffs have standing despite

The Defendant and Intervenors suggested both in oral
argument and in their written presentations that the
Court should abstain under either Pullman, Colorado
River, or Rooker-Feldman doctrine. Since standing is
jurisdictional and since this Court is dismissing this
action, it need not analyze these arguments. See Railroad
Commission of Texas v. Pullman Co., 312 U.S. 496, 61

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2046

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 4 Document 78-4

2

Ex. 4

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668
S. Ct. 643 (1941); Colorado River Water Conservation
Dist. v. U.S., 424 U.S. 800 (1976); Rooker v. Fidelity
Trust Co., 263 U.S. 413 (1923); and District of Columbia
Court of Appeals v. Feldman, 460 U.S. 462 (1983).

*3 This Court finds that there is a difference between
the voting periods presented to it. The merits need to be
analyzed separately by early voting and election day voting.
With respect to the likelihood of success, the Court would
find that the Plaintiffs do not prevail on the element of
likelihood of success with respect to early voting. First, §
85.062 of the Texas Election Code provides for “temporary
branch polling places” during early voting. Tex. Elec. Code. §
85.062. The statute authorizes county election officials to use
“movable structure[s]” as polling places. Id. § 85.062(b). The
Code does not define “structure,” but Black's Law Dictionary
defines the term as: “Any construction, production, or piece
of work artificially built up or composed of parts purposefully
joined together.” Black's Law Dictionary (11th ed. 2019).
The Court finds, after reviewing the record, the briefing, and
considering the arguments of counsel, that the tents used
for drive-thru voting qualify as “movable structures” for
purposes of the Election Code. The Court is unpersuaded
by Plaintiffs' argument that the voters' vehicles, and not
the tents, are the polling places under the drive-thru voting
scheme. Consequently, the Court finds that drive-thru voting
was permissible during early voting. Moreover, the Plaintiffs
failed to demonstrate under the Texas Election Code that an
otherwise legal vote, cast pursuant to the instructions of local
voting officials, becomes uncountable if cast in a voting place
that is subsequently found to be non-compliant.
Additionally, the promptness with which one brings an
injunction action colors both the elements of likelihood of
success on the merits and irreparable harm. See Petrella v.
Metro-Goldwyn-Mayer, Inc., 572 U.S. 663, 685 (2014) (“In
extraordinary circumstances, however, the consequences of
a delay in commencing suit may be of sufficient magnitude
to warrant, at the very outset of the litigation, curtailment
of the relief equitably awardable.”); Environmental Defense
Fund, Inc. v. Alexander, 614 F.2d 474, 478 (1980) (“equitable
remedies are not available if granting the remedy would be
inequitable to the defendant because of the plaintiff's long
delay.”). Here, the Court finds that the Plaintiffs did not
act with alacrity. There has been an increasing amount of
conversation and action around the subject of implementing
drive-thru voting since earlier this summer. The Defendant
has argued, and no one has refuted, that discussions were
held with leaders of both major political parties, and, using
that input, a drive-thru voting plan was developed. The Harris

County Commissioners Court approved a budget for drivethru voting in late September. Finally, actual drive-thru voting
began October 13, 2020. At virtually any point, but certainly
by October 12, 2020, Plaintiffs could have filed this action.
Instead, they waited until October 28, 2020 at 9:08 p m. to
file their complaint and did not file their actual motion for
temporary relief until mid-day on October 30, 2020—the last
day of early voting. The Court finds this delay is critical. It is
especially important in this compact early voting timeframe,
in a particularly tense election, where each day's voting tally
functionally equated to many days or even weeks of early
voting in different situations.
Therefore, this Court finds the Plaintiffs do not prevail on the
first element.
With regard to the second element, “irreparable injury,” this
point is covered more thoroughly in the standing discussion,
but suffice it to say, in response to the Court's question
during oral argument, Plaintiff's counsel described their
injuries as the concern for the voting law to be accurately
enforced and voting to be legal. In response to the Court's
questions, Plaintiffs' Counsel said their irreparable injury
was that the election process was being compromised, and
that it prevents there being uniformity in the manner of
voting throughout Texas. While certainly valid concerns,
those are not the kind of injuries that separate Plaintiffs
from other concerned citizens. Plaintiffs have no evidence of
individualized irreparable injuries.
The one element that the Court finds the Plaintiffs have
prevailed on is the harm to the party defendant. The Court
finds that there would be no harm to Harris County. The only
suggested harm is that the County has spent millions of dollars
to implement drive-thru voting. While these funds may have
been better spent, their loss does not prevail over tens of
thousands of potentially illegal votes. Further, if granted,
the injunction would only require the Defendant to conduct
elections as Harris County has conducted them in the past
without drive-thru voting.
*4 The last element must, like the first, take on extraordinary
significance in this context. That element concerns the public
interest. Plaintiffs argue, correctly, that the public has an
interest in seeing that elections are carried out pursuant to
the Election Code. This is no doubt true; however, this
generalized interest is offset by two somewhat stronger
factors. First, the drive-thru early voting as designed and
implemented is, to this Court's reading, legal as described

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2047

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 4 Document 78-4

3

Ex. 4

Hotze v. Hollins, Slip Copy (2020)
2020 WL 6437668

above. Second, there have been over 120,000 citizens who
have legally voted utilizing this process. While Plaintiffs
have complained about anecdotal reports of irregularities,
the record reflects that the vast majority were legal voters,
voting as instructed by their local voting officials and voting
in an otherwise legal manner. The only claimed widespread
illegality is the place of voting—a tent outside the polling
place instead of inside the actual building. To disenfranchise
over 120,000 voters who voted as instructed the day before
the scheduled election does not serve the public interest.
Therefore, if the Court had found standing existed, it would
have denied an injunction as to the drive-thru early voting.
The Court finds the issue as to Election Day to cut the opposite
direction. On Election Day, as opposed to early voting, there is
no legislative authorization for movable structures as polling
places. The Election Code makes clear that, on Election Day,
“[e]ach polling place shall be located inside a building.”
Tex. Elec. Code § 43.031(b). The term “building” is not
defined in the Code. Nevertheless, Black's Law Dictionary
defines “building” as: “A structure with walls and a roof,
esp. a permanent structure.” Black's Law Dictionary (11th
ed. 2019). The Court finds, after reviewing the record and
arguments of counsel, that the tents used for drive-thru
voting are not “buildings” within the meaning of the Election
Code. Further, they are not inside, they are clearly outside.
Accordingly, if the Plaintiffs had standing, the Court would
have found that the continuation of drive-thru voting on
Election Day violates the Texas Election Code.
It also finds that, unlike in early voting, the Plaintiffs prevail
when one weighs the various elements that underlie the
issuance of an injunction. First, as stated above, the Court
does not find a tent to be a building. Therefore, under the
Election Code it is not a legal voting location. Second, the
End of Document

Plaintiffs' request for injunctive relief is timely. While it
could and should have been made earlier, it was made days
before the election. The Court would have found that the
Plaintiffs had a likelihood of success. The analysis of the
second element remains the same. With regard to the loss
that the Defendant might suffer, the Court finds this to be
minimal. While it apparently spent millions in implementing
the drive-thru voting system, it had over 120,000 voters use
it—so it is money well-spent. The fact it would not be used
on Election Day does not diminish its benefit. The analysis
of the last element, public interest, swings in favor of the
Plaintiffs. No one should want votes to be cast illegally or at
an illegal polling place. No one has voted yet—so no one is
being disenfranchised. Moreover, for those who are injured or
worried that their health would be compromised should they
be compelled to enter the building to vote, curbside voting is
available under § 64.009 of the Texas Election Code.3 Lastly,
there are very few citizens who would want their vote to be
in jeopardy, so it is incumbent on election officials to conduct
voting in a proper location—not one which the Attorney
General has already said was inappropriate. Consequently,
this Court, had it found that standing existed, would have
granted the injunction prospectively and enjoined drive-thru
voting on Election Day and denied all other relief.
3

This Court is quite cognizant of the Texas Supreme
Court ruling (in a slightly different context) that fear of
contracting COVID-19 does not establish an exception.
In re State, 602 S.W.3d 549 (Tex. 2020).

*5 Nevertheless, since it found standing does not exist, this
action is hereby dismissed.
All Citations
Slip Copy, 2020 WL 6437668
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2048

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 4 Document 78-4

4

Ex. 4

Massey v. Coon, 865 F.2d 264 (1989)
1989 WL 884

865 F.2d 264
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
(The Court's decision is referenced in a “Table of
Decisions Without Reported Opinions” appearing
in the Federal Reporter. Use FI CTA9 Rule 36-3 for
rules regarding the citation of unpublished opinions.)
United States Court of Appeals, Ninth Circuit.

G. Donald MASSEY; Bruce L. Bax;
Donna L. Sergi, Plaintiffs–Appellants,
v.
A. COON, District Judge; Circuit Court of
Oregon for Josephine County; Supreme
Court of the State of Oregon; L.A. Cushing,
District Judge, Defendants–Appellees.
No. 87–3768.
|
Submitted* Nov. 28, 1988.
|
Decided Jan. 3, 1989.
*

The panel unanimously finds this case suitable for
submission on the record and briefs and without
oral argument. Fed.R.App.P. 34(a), Ninth Circuit
Rule 34–4.

Synopsis
D.Or.
AFFIRMED.
Appeal from the United States District Court for the District
of Oregon; James A. Redden, District Judge, Presiding.
Before CHOY, TANG and O'SCANNLAIN, Circuit Judges.

MEMORANDUM**
*1 G. Donald Massey, Bruce L. Bax, and Donna L. Sergi
appeal pro se the district court's judgment dismissing their
action for injunctive and declaratory relief.

Massey, Bax, and Sergi filed an action in federal district court
seeking declaratory and injunctive relief against the Oregon
Supreme Court, the Circuit Court of Oregon for Josephine
County, Oregon State District Judge A. Coon, and Oregon
Circuit Judge L.A. Cushing. The complaint alleged that the
defendants violated the plaintiffs' federal due process and
equal protection rights by unlawfully assigning Coon to serve
as circuit court judge pro tem in plaintiffs' quiet title action
in state court. Defendants moved to dismiss the complaint for
failure to state a claim. The magistrate recommended granting
dismissal and the district court adopted the magistrate's
findings and recommendations and dismissed the action. The
appeal now comes before this court.
A. Jurisdiction Over Bax and Sergi
This court does not have jurisdiction to hear an appeal by pro
se appellants who do not personally sign the notice of appeal.
Carter v. Commissioner, 784 F.2d 1006, 1008 (9th Cir.1986).
Bax and Sergi signed neither the original nor the amended
notices of appeal. Therefore, Bax and Sergi's appeals must be
dismissed.
B. Massey's Appeal
Massey contends that Article VII Section 2(a)(3) of the
Oregon Constitution and several Oregon statutes (1) prohibit
the appointment of a state circuit judge pro tem to serve in
the judicial district for which the judge was elected; and (2)
forbid a state circuit judge to name a judge pro tem as that
power is reserved to the Oregon Supreme Court.
Massey also contends that such assignment, because it
is contrary to state law, violates the due process and
equal protection clauses of the Constitution. Assuming,
arguendo, that Massey has correctly interpreted state law, we
nonetheless conclude that the eleventh amendment bars his
suit.
The eleventh amendment prevents federal courts from
hearing suits brought against a state without its consent,
regardless of the type of relief sought. See Pennhurst State
School & Hosp. v. Halderman, 465 U.S. 89, 100 (1984).
Massey has failed to indicate any explicit waiver of Oregon's
immunity to suit in federal court. He contends that the
eleventh amendment is inapplicable because his suit is not
in substance brought against the state. He further argues that
this suit is excepted from the general jurisdictional bar by the
principles of Ex Parte Young, 209 U.S. 123 (1908). We reject
both arguments.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2049

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 2 Document 78-5

1

Ex. 5

Massey v. Coon, 865 F.2d 264 (1989)
1989 WL 884

The eleventh amendment bars any suit nominally brought
against individual state officials where the state is the real
party in interest.1 Pennhurst, 465 U.S. at 101. A suit for nonmonetary relief is in substance against the sovereign if “the
effect of the judgment would be ‘to restrain the Government
from acting or compel it to act.’ ” Pennhurst, 465 U.S. at 101
n. 11 (citing Dugan v. Rank, 372 U.S. 609, 620 (1963)). Here,
the relief sought would require the state, acting through its
officials, to conform its conduct to state law by appointing a
judge from another district to serve as judge pro tem in this
case.
*2 Massey contends that this suit is not brought against
the state for purposes of the eleventh amendment because
defendants' actions were outside their delegated power.
However, a state official is not entitled to eleventh
amendment immunity only when he acts “without any
authority whatever.” Pennhurst, 465 U.S. at 101 n. 11 (citing
Florida Dept. of State v. Treasure Salvors, Inc., 458 U.S.
670, 697 (1982) (plurality opinion)). “A claim of error in
the exercise of [an official's delegated] power is therefore
not sufficient” to support a claim of ultra vires. Larson v.
Domestic & Foreign Commerce Corp., 337 U.S. 682, 690
(1949). Oregon's Constitution and statutes clearly did provide
a mechanism for appointing judges pro tem, even though the
procedures may not have been followed correctly in this case.
Therefore, this case does not fall within the narrow scope of
the ultra vires doctrine as enunciated by the Supreme Court.
The action against Judges Coon and Cushing was thus in
substance an action against the state.
Massey argues that if the suit is deemed to be one against the
state, it is not barred by the eleventh amendment because it
falls under the exception enunciated in Ex Parte Young. Young
provides that a suit for injunctive relief challenging a state
official's action under the Constitution is not considered a

End of Document

suit against the state for purposes of the eleventh amendment.
Young, 209 U.S. at 167. Although on its face the complaint
states a claim under the due process and equal protection
clauses of the Constitution, these constitutional claims are
entirely based on the failure of defendants to conform to
state law. “[W]hen a plaintiff alleges that a state official has
violated state law.... the entire basis for the doctrine of Young
... disappears.” Pennhurst, 465 U.S. at 106 (emphasis in
original). Therefore, the Young exception does not apply and
the district court correctly dismissed the suit against Judges
Coon and Cushing.
Finally, the district court properly dismissed Massey's action
without leave to amend. Where amendment of the complaint
would have served no purpose because the acts complained of
could not constitute a cognizable claim for relief, it is not error
to dismiss a complaint without leave to amend. See Jones v.
Community Redevelopment Agency, 733 F.2d 646, 650 (9th
Cir.1984). No restatement of Massey's claim could constitute
a claim for relief cognizable in federal court.2
AFFIRMED.
**

1

2

This disposition is not appropriate for publication and
may not be cited to or by the courts of this circuit except
as provided by Ninth Circuit Rule 36–3.
We consider only the claims against Judges Coon and
Cushing because Massey does not argue on appeal that
the district court erred in its determination that the state
court defendants are immune from suit in federal court.
We also deny Massey's motion to file an amended
opening brief. The amended brief adds no new arguments
and would have no effect on the outcome of this case.

All Citations
865 F.2d 264 (Table), 1989 WL 884
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2050

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 2 Document 78-5

2

Ex. 5

Aguila Management LLC v. International Fruit Genetics LLC, Slip Copy (2020)
2020 WL 736303

2020 WL 736303
Only the Westlaw citation is currently available.
United States District Court, D. Arizona.

AGUILA MANAGEMENT LLC, Plaintiff,
v.
INTERNATIONAL FRUIT
GENETICS LLC, Defendant.
No. CV-19-00173-PHX-DJH
|
Signed 02/13/2020
Attorneys and Law Firms
David J. Marr, Pro Hac Vice, Timothy M. McCarthy, Pro Hac
Vice, Clark Hill PLC, Chicago, IL, Ryan James Lorenz, Sean
Michael Carroll, Clark Hill PLC, Scottsdale, AZ, for Plaintiff.
Carol Anne Been, Pro Hac Vice, Leah R. Bruno, Pro Hac
Vice, Dentons US LLP, Chicago, IL, Cynthia Ann Ricketts,
Andrew Carl Stanley, Sacks Ricketts & Case LLP, Phoenix,
AZ, Kate E. Hart, Pro Hac Vice, Dentons US LLP, Kansas
City, MO, for Defendant.

and False Designation of Origin in violation of 15 U.S.C. §
1125(a), and Dilution in violation of 15 U.S.C. § 1125(c), as
well as Common Law Unfair Competition and Common Law
Trademark Infringement. (Doc. 1 at 8-12).
Plaintiff Aguila is the managing entity of a fruit and
vegetables business which conducts transactions in the retail
and wholesale marketplaces. (Doc. 1 at 3). Defendant IFG
is a fruit-breeding business focused on creating new fruit
varietals. (Doc. 20 at 4). Plaintiff's fruit and vegetables
business utilizes trademarks “CANDY” for “Fresh FruitNamely, Apples, Peaches, Pears, Fresh Prunes and Plums;”
“CANDY” for “Fresh Fruit;” and “KANDY” for “Fresh
Fruit and Fresh Vegetables.” (Doc. 1 at 4-5). Subsequent
to Plaintiff, Defendant registered “COTTON CANDY” for
“Fruits, Namely, Fresh Grapes,” among other phrases. (Doc.
20 at Ex. 6). In the Complaint, Plaintiff alleges that Defendant
knowingly and willingly infringed upon its trademarks by
adopting and using “Cotton Candy” as well as other “Candy”
related terms. (Doc. 1 at 5-6). Pursuant to Fed. R. Civ. P. 12(b)
(6), Defendant moves to dismiss on all counts for failure to
state a claim upon which relief can be granted, arguing that
the affirmative defense of laches bars Plaintiff's claims. (Doc.
20 at 1-2).
II. Discussion

ORDER
Honorable Diane J. Humetewa, United States District Judge
*1 Pending before the Court is a Motion to Dismiss (“the
Motion”) filed by Defendant International Fruit Genetics,
LLC (“IFG”) (Doc. 20). The Motion seeks to dismiss
the Complaint filed by Plaintiff Aguila Management LLC
(“Aguila”). (Doc. 20 at 1). Plaintiff filed a Response (Doc.
28), and Defendant filed a Reply (Doc. 31).1
1

Both parties requested oral argument on this matter.
The Court denies the request because the issues have
been fully briefed and oral argument will not aid the
Court's decision. See Fed.R.Civ.P. 78(b) (court may
decide motions without oral hearings); LRCiv 7.2(f)
(same).

I. Background
Plaintiff initiated this action on January 10, 2019 (Doc. 1).
The Complaint alleges Federal Trademark Infringement in
violation of 15 U.S.C. § 1114(1), Federal Unfair Competition

A. Legal Standard for Rule 12(b)(6) Motion
A motion to dismiss pursuant to Rule 12(b)(6) challenges
the legal sufficiency of a complaint. Cook v. Brewer, 637
F.3d 1002, 1004 (9th Cir. 2011). Complaints must contain
a “short and plain statement showing that the pleader
is entitled to relief.” Fed. R. Civ. P. 8(a). This requires
“more than an unadorned, the-defendant-unlawfully-harmedme accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(citing Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555
(2007)). A complaint need not contain detailed factual
allegations to avoid a Rule 12(b)(6) dismissal; it must simply
plead “enough facts to state a claim to relief that is plausible
on its face.” Twombly, 550 U.S. 544, 570 (2007). “The
plausibility standard is not akin to a ‘probability requirement,’
but it asks for more than a sheer possibility that defendant has
acted unlawfully.” Iqbal, 556 U.S. at 678 (citing Twombly,
550 U.S. at 556). “Where a complaint pleads facts that are
‘merely consistent with’ a defendant's liability, it ‘stops short
of the line between possibility and plausibility of entitlement
to relief.’ ” Id. at 678 (citation omitted).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2051

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 4 Document 78-6

1

Ex. 6

Aguila Management LLC v. International Fruit Genetics LLC, Slip Copy (2020)
2020 WL 736303

*2 The Court must interpret facts alleged in the complaint in
the light most favorable to the plaintiff, while also accepting
all well-pleaded factual allegations as true. Shwarz v. United
States, 234 F.3d 428, 435 (9th Cir. 2000). That rule does
not apply, however, to legal conclusions. Iqbal, 556 U.S. at
678. A complaint that provides “labels and conclusions” or
“a formulaic recitation of the elements of a cause of action
will not do.” Twombly, 550 U.S. at 555. Nor will a complaint
suffice if it presents nothing more than “naked assertions”
without “further factual enhancement.” Id. at 557.
B. Laches
Laches is an affirmative defense distinct from a statute of
limitations defense. Jarrow Formulas, Inc. v. Nutrition Now,
Inc., 304 F.3d 829, 835 (9th Cir. 2002) (citation omitted).
It is “an equitable time limitation on a party's right to bring
suit.” Id. (quoting Boone v. Mech Specialties Co., 609 F.2d
956, 958 (9th Cir. 1979)). In a trademark infringement claim
under the Lanham Act, it is well established that laches may
be presented as an equitable defense. GoTo.com, Inc. v. Walt
Disney Co., 202 F.3d 1199, 1209 (9th Cir. 2000). If a suit
is filed beyond the “analogous state limitations period” for
a claim arising from the Lanham Act, the Court presumes
laches applies. Jarrow, 304 F.3d at 836 (citations omitted).
Arizona's analogous statute of limitations for trademark
infringement and unfair competition bars claims after three
years. See Ranch Realty v. DC Ranch Realty, LLC, 614 F.
Supp. 2d 983, 989-90 (D. Ariz. 2007).
To evaluate the application of laches, the Court first applies
a two-prong test. Danjaq LLC v. Sony corp., 263 F.3d 942,
951 (9th Cir. 2001). The first prong asks whether plaintiff
unreasonably delayed filing suit, and the second prong asks
whether defendant suffered prejudice as a result of the delay.
Id.
The first prong begins with the length of delay, which is
measured from the time the plaintiff knew or should have
known about its potential cause of action. Jarrow, 304 F.3d at
838 (citing Kling v. Hallmark Cards Inc., 225 F.3d 1030, 1036
(9th Cir. 2000); Portland Audubon Soc'y v. Lujan, 884 F.2d
1233, 1241 (9th Cir. 1989)). Next, the Court decides whether
the plaintiff's delay was reasonable. Id. (citing Danjaq, 263
F.3d at 954-55; Couveau v. American Airlines, 218 F.3d 1078,
1083 (9th Cir. 2000)). The reasonableness of the plaintiff's
delay is considered in light of the time allotted by the
analogous limitations period. Id. (citing Sandvik v. Alaska
Packers Ass'n, 609 F.2d 969, 971 (9th Cir. 1979)). The Court

also considers whether the plaintiff has proffered a legitimate
excuse for its delay. Id. (citing Danjaq, 263 F.3d at 954-55).
In the second prong, a defendant must prove either evidentiary
prejudice or expectations-based prejudice. Danjaq, 263 F.3d
at 955. Evidentiary prejudice includes such things as lost,
stale, or degraded evidence, or witnesses whose memories
have faded or who have died. Id. (citations omitted). A
defendant may demonstrate expectations-based prejudice by
showing that it took actions or suffered consequences that
it would not have, had the plaintiff brought suit promptly.
Id. (citation omitted). However, when laches is presented
as a defense to a trademark infringement claim, a finding
of expectations-based prejudice requires more. Internet
Specialties West, Inc. v. Milon-Digiorgio Enters., Inc., 559
F.3d 985, 991 (9th Cir. 2009). The court must determine
whether the claim of prejudice is based on mere expenditures
in promoting the infringed name or whether it is based on
an investment in the mark as the identity of the business
in the minds of the public. Id. at 991-93 (citations omitted)
(quotation omitted).
*3 Finally, in addition to the Jarrow two-prong test, courts
analyze six factors to determine whether laches precludes a
trademark infringement claim: “1) the strength and value of
trademark rights asserted; 2) plaintiff's diligence in enforcing
mark; 3) harm to senior user if relief denied; 4) good faith
ignorance by junior users; 5) competition between senior and
junior users; and 6) extent of harm suffered by junior user
because of senior user's delay.” E-Systems, Inc. v. Monitek,
Inc., 720 F.2d 604, 607 (9th Cir. 1983).
C. Analysis
In the Motion, Defendant argues Plaintiff's claims are
barred by the equitable doctrine of laches. (Doc. 20 at 7).
Courts in this district have previously applied laches in
a motion to dismiss, noting that “where the elements of
laches are apparent on the face of a complaint, it may be
asserted on a motion to dismiss.” Arizona Minority Coalition
for Fair Redistricting v. Arizona Independent Redistricting
Com'n, 366 F. Supp. 2d 887, 912 n.19 (D. Ariz. 2005)
(citation omitted). Defendant first argues the facts require
the presumption that laches applies. (Doc. 20 at 8). Second,
Defendant argues Plaintiff unreasonably delayed suit. Id. at
9. Third, Defendant argues it is prejudiced by Plaintiff's
alleged unreasonable delay in bringing suit. Id. at 10. Finally,
Defendant argues the six-factor E-Systems test weighs in
favor of dismissing Plaintiff's claims. Id. at 11-14. For the
following reasons, the Court will deny the Motion.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2052

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 4 Document 78-6

2

Ex. 6

Aguila Management LLC v. International Fruit Genetics LLC, Slip Copy (2020)
2020 WL 736303

1. The Presumption of Laches
Plaintiff does not dispute that in 2011 it had knowledge of
Defendant's “COTTON CANDY” Intent-To-Use Trademark
Application at the U.S. Patent Trademark Office (“USPTO”).
(Doc. 28 at 9-10). Plaintiff argues an intent-to-use application
does not trigger laches because the Lanham Act requires
infringement by “use in commerce” for laches to be triggered.
Id. at 9 (citing United Am. Indus., Inc. v. Cumberland Packing
Corp., No. CV-06-1833PHX-FJM, 2007 WL 38279 at *3
(D. Ariz. Jan 5, 2007)). In this instance, however, the Court
need not reach whether an intent-to-use application triggers
laches under the Lanham Act because Defendant's “COTTON
CANDY” mark was later registered with the USPTO on
March 6, 2012. (Doc. 20 at Ex. 6). The registration also
indicated use in commerce as early as August 26, 2011. Id.
As a matter of public record not subject to reasonable
dispute, the Court takes judicial notice of Defendant's
2012 “COTTON CANDY” mark registration. See Intri-Plex
Technologies, Inc. v. Crest Group, Inc., 499 f.3d 1048, 1052
(9th Cir. 2007); Fed. R. Evid. 201(b); Tallyho Enterprises,
LLC. V. PremierGarage Sys., LLC, No. CV-07-01791-PHXSRB, 2008 WL 11338891, at *7 n.1 (D. Ariz. Apr. 29, 2008).
Plaintiff thus had constructive notice of the March 6, 2012
registration of “COTTON CANDY” mark by Defendant. See
Kling, 225 F.3d at 1036 (when laches is raised, the law
charges Plaintiff with “such knowledge as he might have
obtained upon inquiry, provided the facts already known by
him were such as to put upon a man of ordinary intelligence
the duty of inquiry”). Given that Plaintiff was aware of the
relevant intent-to-use application prior to Defendant's March
6, 2012 “COTTON CANDY” mark registration, the Court
finds Plaintiff reasonably had a duty of inquiry and is assumed
to have had knowledge of the registration as of March 6, 2012.
The current action was filed January 10, 2019, far later than
the would-be March 6, 2015 deadline for suit under Arizona's
analogous statute. The Court thus initially proceeds under the
assumption laches applies. See Jarrow, 304 F.3d at 836.

2. Plaintiff's Unreasonable Delay
*4 Plaintiff filed suit nearly seven years following
Defendant's March 6, 2012 “COTTON CANDY” mark
registration. Plaintiff's delay is greater than double the

maximum time to file suit under Arizona's analogous statute
of limitations. Plaintiff does not establish any justifiable
reason for the delay. The Court finds the length of Plaintiff's
delay to be unreasonable.

3. Defendant Must Show it is Prejudiced by Plaintiff's
Unreasonable Delay
Plaintiff's delay in bringing suit is unreasonable, but
Defendant does not claim evidentiary prejudice and has not
proven expectations-based prejudice. The Complaint does
allege that “IFG has both licensed the Infringing Marks ... and
sold products bearing the Infringing Marks.” (Doc. 1 at 7).
The claim that Defendant licensed and sold products bearing
infringing marks, however, does not establish prejudice in the
laches context. See Internet Specialties, 559 F.3d at 991-93.
Laches is meant to protect an infringer whose efforts have
been aimed at “build[ing] a valuable business around its
trademark” and “an important reliance on the publicity of [its]
mark.” Id. at 991-92 (quoting 6 McCarthy on Trademarks and
Unfair Competition § 31:12) (citations omitted) (emphases
added). Proof of efforts to build a valuable business around
the marks in question is necessary because “if this prejudice
could consist merely of expenditures in promoting the
infringed name, then relief would have to be denied in
practically every case of delay.” Id. at 991 (quoting Tisch
Hotels, Inc. v. Americana Inn, Inc., 350 F.2d 609, 615 (7th
Cir. 1965)).
Defendant has not shown at this stage that its alleged
infringement rests on “an investment in the mark [ ] as
the identity of the business in the minds of the public.” Id.
at 992; see also Jarrow, 304 F.3d at 839 (if plaintiff had
filed the action sooner, defendant “could have invested its
resources in shaping an alternative identity ... in the minds of
the public”). Defendant's statement that “the history of IFG's
uncontested growth as documented in the Complaint and in
the USPTO register are precisely what evidence Courts rely
upon” when analyzing prejudice understates the burden of
proof required when asserting laches against a Lanham Act
trademark infringement claim. (Doc. 31 at 2). Defendant's
statement that its efforts regarding brand recognition are
sufficiently demonstrated “by its development, registration,
use, and licensing of its numerous CANDY-formative marks”
also misapprehends the burden of proof required to show
expectations-based prejudice. Id. at 8. The Court is unable to
conclude, at this early stage of the litigation, that Defendant
has invested in the relevant marks as the identity of its

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2053

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 4 Document 78-6

3

Ex. 6

Aguila Management LLC v. International Fruit Genetics LLC, Slip Copy (2020)
2020 WL 736303

business. Even finding a presumption in favor of laches, the
application of laches at this stage is inappropriate because
prejudice is not apparent on the face of the Complaint.2
Therefore, the Court will deny the Motion to Dismiss.
2

The Court need not reach the E-Systems factors because
the Motion fails to establish prejudice under the Jarrow
test. See Internet Specialties, 559 F.3d at 991 (citing
Jarrow, 304 F.3d at 839) (holding that notwithstanding
the result of the E-Systems analysis, defendant must still
satisfy the second prong of the laches test).

The Court finds the application of laches inappropriate
because the Defendant failed to establish prejudice at this
stage.
*5 Accordingly,
IT IS ORDERED that Defendant's Motion to Dismiss (Doc.
20) is DENIED.
All Citations
Slip Copy, 2020 WL 736303

III. Conclusion
End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2054

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 4 Document 78-6

4

Ex. 6

Solow Bldg. Co., LLC v. Nine West Group, Inc., Not Reported in F.Supp.2d (2001)
2001 WL 736794

KeyCite Yellow Flag - Negative Treatment
Distinguished by Gervasi v. Warner/Chappell Music, Inc., M.D.Tenn.,
January 30, 2014

2001 WL 736794
Only the Westlaw citation is currently available.
United States District Court, S.D. New York.

SOLOW BUILDING
COMPANY, LLC, Plaintiff,
v.
NINE WEST GROUP, INC. and Nine West
Development Corporation, Defendants.
No. 00 Civ. 7685(DC).
|
June 29, 2001.
Attorneys and Law Firms
Dreier & Baritz LLP, By: Marc S. Dreier, Michael A.
Nicodema, New York, New York, for Plaintiff.
Fried Frank Harris Shriver & Jacobson, By: Ira S. Sacks, Rita
M. Odin, Andrea R. Rosenblum, New York, New York, for
Defendants.

delayed the commencement of this action, and has prejudiced
defendants by its delay, the Court agrees that the laches
defense applies; moreover, even assuming this action is
not untimely, the Complaint fails to allege likelihood of
confusion and plaintiff's ownership rights to the “9 West”
name. Accordingly, plaintiff's Complaint is dismissed.

BACKGROUND
A. The Parties
Plaintiff Solow Building Company, LLC (“Solow”), a
New York corporation, is a real estate company engaged
in constructing and renting commercial and residential
properties. It is headquartered at 9 West 57th Street,
New York, New York, which is plaintiff's “premier
property.” (Sec.Am.Compl.¶¶ 1, 10). On the sidewalk in front
of its headquarters, plaintiff has placed a nine-foot by fivefoot red sculpture of the numeral “9.” (Id. ¶ 13). Plaintiff's red
numeral “9” is a registered mark with the United States Patent
and Trademark Office (the “USPTO”). (Id. ¶ 12). In addition,
plaintiff has registered the mark “SOLO9W57” (id. ¶ 14), and
it alleges that “the public has derived the nickname ‘9 West’
from Solow's numeral ‘9’ and/or the SOLOW9W57 service
marks as an identification of 9 West 57.”1 (Id. ¶ 16).
1

MEMORANDUM DECISION
CHIN, J.
*1 Plaintiff, a real estate corporation, is headquartered at 9
West 57th Street in New York City, a building with a large
red sculpture—the numeral “9”—on the sidewalk in front
of the property. Although plaintiff has never used the name
in its business, it contends that its building has acquired the
nickname “9 West.” Defendants, manufacturers and retailers
of shoes, clothing, and accessories, have used the mark “Nine
West” since 1980. Plaintiff sues defendants for trademark
dilution, false designation of origin, trademark infringement,
and unfair competition.
Defendants move to dismiss the Second Amended Complaint
(the “Complaint”) on the grounds that plaintiff's claims are
barred by laches and fail to state a claim upon which relief
may be granted. As discussed below, because the Complaint
demonstrates that plaintiff has known of defendants' use
of the “Nine West” mark since 1980, has inexcusably

In its Complaint, plaintiff identifies its service mark
as both “SOLO9W57” and “SOLOW9W57.” (See, e.g.,
Sec. Am. Compl. ¶¶ 14, 15, 16). It is unclear which
version is the proper mark.

Defendant Nine West Group, Inc. is a manufacturer
and retailer of shoes, clothing, and accessories. It is a
Delaware corporation with its principal place of business in
White Plains, New York. (Id. ¶ 2). Defendant Nine West
Development Corp. is a wholly owned subsidiary of Nine
West Group.2 (Id. ¶ 3).
2

The Court shall refer to defendants collectively as “Nine
West .”

B. Defendants' “Nine West” Mark
Fisher Camuto Retail Corporation (“Camuto”) was the
predecessor of Nine West. (Id. ¶ 18). Camuto was a tenant in
9 West 57th Street from July 1977 through June 1982. (Id.). In
or about 1980, Camuto began doing business under the name
“9 West,” employing the numeral “9” on its corporate logo
similar to plaintiff's “9” sculpture. (Id. ¶¶ 19, 20). In 1981, in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2055

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 6 Document 78-7

1

Ex. 7

Solow Bldg. Co., LLC v. Nine West Group, Inc., Not Reported in F.Supp.2d (2001)
2001 WL 736794

response to plaintiff's demands to cease using the “9” logo,
Camuto began using a “script numeral ‘9.” ’ (Id. ¶ 21).
*2 In 1990, Camuto began using “Nine West” as its
corporate logo, and, in 1993, it also began using the name
“9 & Co.” (Id. ¶¶ 22–24). Defendants use the marks “for
use in connection with the retail sale of women's shoes and
handbags.” (Id. ¶¶ 23, 24). Defendants registered both names
with the USPTO in 1991 and 1995, respectively. (Id.).
In 1996, defendants began using their “Nine West” mark in
connection with the retail sale of clothing (such as hosiery,
jackets, and sleepwear) and accessories (such as sunglasses,
watches, and hats). (Id. ¶¶ 26–28). Defendants filed trademark
applications on their “Nine West” name to cover these
products. (Id.).
C. Investigations of Defendants
In 1997, the Securities and Exchange Commission began
investigating defendants for accounting irregularities and,
along with the United States Customs Service, for
circumstances surrounding Brazilian imports. (Id. ¶ 34). More
recently, the Federal Trade Commission (the “FTC”) and
all of the state attorney generals investigated defendants for
alleged price-fixing, which resulted in a settlement agreement
whereby defendants agreed to pay approximately $34 million
in fines. (Id. ¶¶ 35, 36).

DISCUSSION
Plaintiff's Complaint asserts four causes of action: trademark
dilution under the Lanham Act; false designation under the
Lanham Act; common law trademark infringement and unfair
competition; and trademark dilution under New York law.
Defendants move to dismiss the Complaint in its entirety,
arguing that plaintiff's claims are barred by laches. In addition,
defendants argue that the Complaint must be dismissed
because, among other things, plaintiff failed to sufficiently
plead likelihood of confusion and its ownership in the mark
“9 West.”
I. Motion to Dismiss Standard
A complaint may not be dismissed on a motion to dismiss
unless it “ ‘appears beyond doubt that the plaintiff can prove
no set of facts in support of his claim which would entitle
him to relief.” ’ Allen v. WestPoint–Pepperell, Inc., 945 F.2d
40, 44 (2d Cir.1991) (quoting Conley v. Gibson, 355 U.S. 41,

45–46 (1957)). Therefore, the issue before the Court “ ‘is
not whether a plaintiff will ultimately prevail but whether the
claimant is entitled to offer evidence to support the claims.”
’ Villager Pond, Inc. v. Town of Darien, 56 F.3d 375, 378 (2d
Cir.1995) (quoting Scheuer v. Rhodes, 416 U.S. 232, 235–36
(1974)).
Although the pleading requirements under Federal Rule
of Civil Procedure 8(a) are construed liberally, “[l]iberal
construction has its limits, for the pleading must at least
set forth sufficient information for the court to determine
whether some recognized legal theory exists upon which
relief could be accorded the pleader. If it fails to do so,
a motion under Rule 12(b)(6) will be granted.” Levisohn,
Lerner, Berger & Langsam v. Medical Taping Sys., Inc.,
10 F.Supp.2d 334, 344 (S.D.N.Y.1998) (internal quotation
omitted); accord Scholastic, Inc. v. Stouffer, 124 F.Supp.2d
836, 841 (S.D.N.Y.2000).
II. Laches
*3 To prevail on the defense of laches, defendants must
establish three elements: (1) plaintiff had knowledge of
defendants' use of its marks; (2) plaintiff inexcusably delayed
taking action; and (3) defendants will be prejudiced by
permitting plaintiff to assert its rights now. See Fourth Toro
Family Ltd. P'ship v. PV Bakery, Inc., 88 F.Supp.2d 188, 196
(S.D.N.Y.2000) (citation omitted). Although the burden of
establishing these factors is usually on defendants, the Second
Circuit has instructed that “when the suit is brought after the
statutory time has elapsed, the burden is on the complainant
to [allege] ... the circumstances making it inequitable to apply
laches in [its] case.” Conopco, Inc. v. Campbell Soup Co.,
95 F.3d 187, 191 (2d Cir.1996); cf. Jose Armando Bermudez
& Co. v. Bermudez Int'l, No. 99 Civ. 9346(AGS), 2000 WL
1225792, at *8 (S.D.N.Y. Aug. 29, 2000) (conducting this
analysis on a motion to dismiss).
The limitations period that courts apply to Lanham Act
cases is six years.3 See Bermudez, 2000 WL 1225792, at *8
n. 10 (citing Conopco, 95 F.3d at 191–92). Here, plaintiff
acknowledges that Camuto “adopted the corporate logo ‘9
West’ and began doing business under that name” in 1980,
and that in 1991 “Camuto filed a trademark application ... on
the name ‘Nine West’ for use in connection with the retail
sale of women's shoes and handbags.” (Sec.Am.Compl.¶¶
19, 23). Plaintiff commenced this suit on October 12, 2000.
Accordingly, because the statute of limitations has run, see
Bermudez, 2000 WL 1225792, at *8 n. 10 (noting that the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2056

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 6 Document 78-7

2

Ex. 7

Solow Bldg. Co., LLC v. Nine West Group, Inc., Not Reported in F.Supp.2d (2001)
2001 WL 736794

period begins to run “when plaintiff purportedly discovered
the alleged infringements”), “a presumption of laches ...
appl[ies] and plaintiff must show why the laches defense
ought not be applied in the case.”4 Conopco, 95 F.3d at 191.
3

4

The Second Circuit has explained that “laches is an
equitable defense that courts employ instead of a
statutory time-bar.... Because the Lanham Act establishes
no limitations period ..., and ... there is no corresponding
federal statute of limitations, we look to the most
appropriate state statute of limitations for laches
purposes.” Conopco, 95 F.3d at 191. Hence, courts in
this circuit apply New York's six-year fraud statute to
Lanham Act claims. See id.; accord Fourth Toro Family,
88 F.Supp.2d at 196.
Even if the statute of limitations has not run, the laches
defense may still be applicable. See Peyser v. Searle Blatt
& Co., No. 99 Civ. 10785(WK), 2000 WL 1071804, at
*

5 (S.D.N.Y. Aug. 2, 2000). In such a situation, however,
there is no presumption of laches, and, thus, the burden
remains on the defendant to prove the defense. Conopco,
95 F.3d at 191.

Plaintiff argues that its case should not be dismissed for
laches for three reasons. First, plaintiff asserts that laches is
not a proper issue for determination on a motion to dismiss.
Second, plaintiff asserts that it has not inexcusably delayed
taking action. Last, plaintiff asserts that its delay has not
prejudiced defendants .5 I address, and ultimately reject, each
of these arguments in turn.
5

In its memorandum in opposition to defendants' motion
to dismiss, plaintiff states that the “presumption” of
laches “has no basis in law, or logic.” (Pl. Mem.
at 18). Hence, plaintiff's arguments actually read,
“Defendants Have Failed to Establish an Unreasonable
and Inexcusable Delay in Filing Suit,” and “Defendants
Have Failed to Establish Prejudice.” (Id. at 17, 18
(emphasis added)). As already noted, however, the
Second Circuit has specifically stated that “once the ...
statute has run, a presumption of laches will apply,”
Conopco, 95 F.3d at 191, and the Complaint here clearly
indicates that plaintiff commenced this action outside the
limitations period. See Bermudez, 2000 WL 1225792,
at *8 n. 10. Nonetheless, even if the burden is on
defendants to establish laches, as discussed more fully
below, defendants have satisfied this burden.

A. Resolving Laches on Motion to Dismiss

This Court has held: “[W]hen the defense of laches is clear
on the face of the complaint, and where it is clear that the
plaintiff can prove no set of facts to avoid the insuperable bar,
a court may consider the defense on a motion to dismiss.”
Lennon v. Seaman, 63 F.Supp.2d 428, 439 (S.D.N.Y.1999)
(citing Oshiver v. Levin Fishbein Sedrin & Berman, 38 F.3d
1380, 1385 n. 1 (3d Cir.1994); 5A Charles A. Wright & Arthur
R. Miller, Federal Practice & Procedure: Civil 2d § 1357);
accord Bermudez, 2000 WL 1225792, at *8. Hence, although
the defense is fact-specific, the Court can consider laches on
a motion to defense.
B. Inexcusable Delay
*4 Although plaintiff acknowledges that it has known of
defendants' use of the “Nine West” mark since at least
1981 (Sec.Am.Compl.¶ 21), plaintiff argues that it has
not inexcusably delayed the commencement of this action
because its claims are based on “actions taken by Defendants
beginning in 1996 and continuing through 2000....” (Pl. Mem.
at 17). To support its position, plaintiff relies exclusively
on the decision in Fourth Toro Family, 88 F.Supp.2d 188.
(Pl. Mem. at 18). There, in a dispute between bagel sellers
each claiming the right to use the “H & H” name, defendant
argued that the action was barred by laches because it had
used the name for 12 years prior to plaintiff's suit. The
court, however, rejected the defense, noting a number of
actions in the intervening years that excused the delay:
defendant had “increased the aggressiveness and the scope of
its advertising” by imitating plaintiff's campaigns; defendant
changed its marketing focus from Manhattan to nation-wide;
defendant changed its mark to one that was much more similar
to plaintiff's mark; defendant adopted a “confusingly similar
'800' number”; and defendant traded on plaintiff's kosher
certification. Fourth Toro Family, 88 F.Supp.2d at 197. These
actions, according to the court, “creat[ed] instances of both
actual, reported confusion and the likelihood of increasing
confusion.” Id. In addition, the court noted that, prior to suing
defendant, plaintiff had taken action with the “Trademark
Office” on at least three separate occasions and, in fact,
obtained “exclusive trademark protection” from the office. Id.
at 197–98. Thus, the court concluded that “plaintiff's filing of
[the] lawsuit ... was a direct and timely response to defendant's
tactics.” Id. at 198 (citation omitted).
In contrast, plaintiff here took no action against defendants
until it commenced this action in October 2000, and
defendants took no actions that increased the likelihood
of confusion between the parties' marks or their services.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2057

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 6 Document 78-7

3

Ex. 7

Solow Bldg. Co., LLC v. Nine West Group, Inc., Not Reported in F.Supp.2d (2001)
2001 WL 736794

Defendants have used the “Nine West” mark, with plaintiff's
knowledge, since 1980. In 1981, plaintiff demanded that
Camuto alter his “9 West” logo because it allegedly violated
plaintiff's red numeral “9” trademark. (Sec.Am.Compl.¶ 21).
For the next two decades, however, plaintiff took no action
even as defendants “continued to use the name[s] ... openly
and notoriously....” (Id. ¶ 25). Plaintiff does not allege that
it sought exclusive protection for the “9 West” mark, cf.
Fourth Toro Family, 88 F.Supp.2d at 197–98, it does not
allege that it notified defendants of its concerns, cf. Bermudez,
2000 WL 1225792, at *8 (declining to apply laches, in part,
because plaintiff had “notified [defendant] of its concerns
relat[ing] to possible infringement,” and because defendant,
in response, had represented that it would no longer engage in
the allegedly infringing conduct), and it does not allege that it
conducted an “investigation into the merits of [its] case.”6 Cf.
Peyser, 2000 WL 1071804, at *6 (noting that a “reasonable
investigation into the merits ... will in effect toll the laches
period”).
6

In its memorandum in opposition to defendants' motion
to dismiss, plaintiff does not assert that it took any of
these actions.

*5 In addition, plaintiff does not allege that defendants'
use of the “Nine West” mark, including their post–1996
use, “increas[ed] the likelihood of confusion” between its
real estate business or its properties and defendants' shoe
and clothing business. The crux of the Fourth Toro Family
decision was that in the intervening years defendant's actions
“altered the competitive environment between plaintiff and
defendant.” 88 F.Supp.2d at 198. Here, plaintiff does not,
and cannot, make such an allegation. Rather, plaintiff merely
alleges that defendants' actions during that time “expanded
the public's awareness of [defendants' ] ‘Nine West’ name.”7
(Sec. Am. Compl. ¶ 26 (emphasis added)). Accordingly, the
Complaint does not sufficiently allege that the filing of this
lawsuit in October 2000, more than 20 years after defendants
began using the “Nine West” name, was either a direct or
a timely response to defendants' actions. Cf. Fourth Toro
Family, 88 F.Supp.2d at 198.
7

Plaintiff also argues that the SEC's and FTC's
investigations of defendants, beginning in 1997, and
the resulting “negative publicity,” “caused the public
to associate [defendants' marks] with dishonesty,
fraudulent practices and illegal conduct. As a direct
result, 9 West 57 has become wrongly associated
with dishonesty, fraudulent practices and illegal

conduct.” (Sec.Am.Compl.¶ 37). This argument is
meritless. First, the Complaint does not allege that
the investigations increased the likelihood of confusion
between the parties. Second, as discussed by the Fifth
Circuit, plaintiff is proposing that a “trademark owner
has a property right in his mark, but only so long as
he personally is not unpopular with the general public.”
Exxon Corp. v. Oxxford Clothes, Inc., 109 F.3d 1070,
1084 (5th Cir.1997). Like the Fifth Circuit, I “reject this
highly unorthodox view of trademark law.” Id.

C. Prejudice to Defendants
“A defendant has been prejudiced when the assertion of a
claim available some time ago would be ‘inequitable’ in light
of the delay in bringing that claim. Specifically, prejudice is
present when a ‘defendant has changed his position in a way
that would not have occurred if the plaintiff had not delayed.”
’ Bermudez, 2000 WL 1225792, at *8 (quoting Conopco, 95
F.3d at 192). Here, the Complaint alleges the following: in
1980, Camuto began using a variation on the “Nine West”
name; in 1981, plaintiff demanded that Camuto alter the style
of his logo; in 1990, Camuto began using “Nine West” as its
corporate logo; in 1991, Camuto filed a trademark application
on the name “Nine West”; in 1993, defendants began to
use the name “9 & Co.,” and, in 1995, they applied for
trademark protection for the name; from 1996 through 2000
defendants expanded its line of consumer products from shoes
and handbags to include certain types of clothing apparel and
accessories, and defendants filed trademark applications to
cover these products under their “Nine West” name. Thus, in
part because of plaintiff's inaction as to defendants' use of the
“Nine West” mark, defendants have used the name for more
than 20 years “in the manufacture and retail sale of clothing
and accessories....” (Sec.Am.Compl.¶ 2). Aside from the one
concern that it raised in 1981, plaintiff has allowed defendants
to use the “Nine West” name uncontested for two decades.
Nonetheless, plaintiff argues that defendants have not
suffered prejudice because “since 1996, Defendants have
changed the manner in which they used the ‘Nine West’
name by expanding their business activities to include a
wide variety of consumer products....”8 (Pl. Mem. at 19).
This argument, however, supports the opposite conclusion—
that plaintiff's inaction prejudiced defendants—as defendants
decided to “expand [their] business activities” after 16 years
of selling shoes and handbags with no action from plaintiff.
(Sec.Am.Compl.¶ 26). Cf. Peyser, 2000 WL 1071804, at *7–
8 (noting that “courts have had little tolerance for cries of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2058

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 6 Document 78-7

4

Ex. 7

Solow Bldg. Co., LLC v. Nine West Group, Inc., Not Reported in F.Supp.2d (2001)
2001 WL 736794

‘prejudice’ from defendants who ... were put on notice of an
infringement”).
8

Plaintiff's additional argument that defendants have
failed to “establish” prejudice because “since 1997,
[they] have been engaged in a series of illegal activities
which have lent notoriety to the ‘Nine West’ name”
is irrelevant. The issue before the Court is whether
defendants have suffered prejudice because of plaintiff's
inactions.

*6 Accordingly, because plaintiff has known of defendants'
use of the “Nine West” name since 1980, has inexcusably
delayed the commencement of an action against defendants,
and has allowed defendants to maintain and expand their
business activities by its delay, thus prejudicing defendants,
plaintiff's claims are barred by laches. Laches is clear on the
face of plaintiff's Complaint; it is clear that plaintiff “can
prove no set of facts to avoid the insuperable bar,” Lennon,
63 F.Supp.2d at 439; and there is no reason why the Court
“should permit plaintiff[ ] to ‘sleep on [its] rights' to sue under
any of [its] claims.” Peyser, 2000 WL 1071804, at *9.
III. Additional Grounds for Dismissal
A. Likelihood of Confusion
Even assuming the Complaint is not barred by laches,
plaintiff's cause of action also fails because the Complaint
fails to sufficiently allege any likelihood of confusion
between the parties' marks, as required by the Lanham Act
and New York common law. See Nabisco, Inc. v. Warner–
Lambert Co., 220 F.3d 43, 45–46 (2d Cir.2000). Although
the existence of consumer confusion is generally a question
of fact, “[i]n considering a motion to dismiss pursuant to
Rule 12(b)(6), the Court may ... make an initial finding as to
whether or not a jury would find a likelihood of confusion
as to source.” Textile Deliveries, Inc. v. Stagno, No. 90
Civ.2020(JFK), 1990 WL 155709, at *6 (S.D.N.Y. Oct. 9,
1990); accord Schieffelin & Co. v. Jack Co. of Boca, Inc., 725
F.Supp. 1314, 1323 (S.D.N.Y.1989) (noting that for a motion
to dismiss “courts retain an important authority to monitor the
outer limits of substantial similarity within which a jury is
permitted to make the factual determination whether there is a
likelihood of confusion as to source” (quoting Warner Bros.,
Inc. v. American Broadcasting Cos., 720 F.2d 231, 246 (2d
Cir.1983))). Thus, the Court, accepting the facts as alleged in
plaintiff's Complaint as true, must conclude whether a legal
claim exists based on those facts. Here, plaintiff has failed to
9

allege the existence of likelihood of confusion.

9

This is in contrast to the facts in Solow v. BMW
(US) Holding Corp., No. 97 Civ. 1373(DC), 1998 WL
717613, at *4 (S.D.N.Y. Oct. 14, 1998), where I denied
a motion to dismiss a complaint filed by Solow that
did allege a likelihood of confusion. There, in a case
involving BMW's use—in a television commercial—of
a red numeral “5” sculpture in front of a building similar
in style to plaintiff's 9 West 57th Street property, Solow
“unequivocally” alleged likelihood of confusion. See id.
Moreover, in that case, unlike here, Solow did not wait
20 years to commence its action.

In addressing likelihood of confusion, courts apply the eightfactor test set forth in Polaroid Corp. v. Polaroid Elecs. Corp.,
287 F.2d 492, 495 (2d Cir.1961):(i) strength of plaintiff's
mark; (ii) similarities of the parties' marks; (iii) proximity of
the parties' products in the marketplace; (iv) likelihood that
plaintiff will bridge the gap between the products; (v) actual
confusion; (vi) defendants' intent in adopting their mark; (vii)
quality of defendants' product; and (viii) sophistication of the
relevant consumer group. See also Nabisco, 220 F.3d at 46.
As the Second Circuit has noted, “the ultimate question [is]
whether consumers are likely to be confused.” Id. (quotation
and citation omitted).
Here, the Complaint makes no allegations at all as to
five of the Polaroid factors (iii, iv, vi, vii, and viii).
The absence of any such discussion is not surprising, as
those factors all weigh against a finding of confusion.
As to the “ultimate question” of the likelihood of
consumer confusion, the Complaint provides that plaintiff
is a “corporation engaged in the business of real estate
construction and the rental of distinctive commercial and
residential properties.” (Sec.Am.Compl.¶ 1). Defendants, in
turn, manufacture and sell women's footwear, handbags,
and, for the last six years, additional items such as hosiery,
sunglasses, watches, and bed sheets. (Id. ¶¶ 24–28). Thus,
there is clearly no proximity between the parties' businesses
or their products, and there is simply no competition between
the parties. See Charles Atlas, Ltd v. DC Comics, Inc., 112
F.Supp.2d 330, 339 (S.D.N.Y.2000) (noting that because the
parties “are simply not in direct competition ... the likelihood
of confusion is greatly reduced”). Moreover, consumers who
seek real estate construction or property rentals surely will not
be confused by a company that manufactures and sells women
shoes, handbags, clothing, and accessories.
*7 Accordingly, the Court concludes that the Complaint's
allegations exceed the “outer limits ... within which a jury

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2059

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 6 Document 78-7

5

Ex. 7

Solow Bldg. Co., LLC v. Nine West Group, Inc., Not Reported in F.Supp.2d (2001)
2001 WL 736794

is permitted to make the factual determination [that] there is
a likelihood of confusion as to source.” Based on the facts
alleged, no legal claim exists.
B. Plaintiff's “9 West” Mark
In the Complaint, plaintiff alleges that “the public has derived
the nickname ‘9 West’ ... [and] uses the nickname ‘9 West’
to identify 9 West 57 and has come to uniquely associate the
nickname ‘9 West’ with the building.” (Sec.Am.Compl.¶ 16).
The Complaint does not allege, however, that plaintiff uses,
or has ever used, the nickname “9 West,” or that plaintiff uses,
or has ever used, the nickname to identify the building at 9
West 57. Hence, defendants argue that plaintiff “cannot have
acquired ownership rights in the mark ‘9 West.” ’ (Defs. Mem.
at 12–13); see 15 U.S.C. § 1127 (defining “trademark” as “any
word, name, symbol, or device ... used by [the applicant]”
seeking trademark protection (emphasis added)).
In response, plaintiff does not challenge defendants' assertion
that it does not use the nickname, but, instead, relies on
National Cable Television Ass'n v. American Cinema Editors,
Inc., 937 F.2d 1572 (Fed.Cir.1991), for its argument that
“even without ‘use’ of trademark directly by the claimant ...,
nicknames of trademarks or names used only by the public
give rise to protectable rights....” (Pl. Mem. at 20). While the
court there did state, in dicta, that public-created nicknames
do give rise to protectable rights, the court's holding rested
on the fact that plaintiff had “made significant use of [the
nickname] as its trade name....” National Cable Television,
937 F.2d at 1577–78.
In Harley–Davidson, Inc. v. Grottanelli, 164 F.3d 806, 812 (2d
Cir.1999), a case involving a motorcycle manufacturer's and
a motorcycle repairer's competing use of the word “hog,” the
Second Circuit noted the National Cable Television decision
but did not indicate “[w]hether or not we agree with [the]
decision[ ]....” The court did note, however, that the nickname
“hog,” like plaintiff's alleged nickname “9 West,” differed
“significantly” from the nickname at issue in National Cable
Television in that the nickname “hog” was “a generic term

it trademark significance, at least as long as the term retains
some generic meaning.”11 Id.
10

11

As noted by the Second Circuit, the term “hog” was used
“to refer to motorcycles generally and large motorcycles
in particular.” Harley–Davidson, 164 F.3d at 808.
Moreover, the Second Circuit denied trademark
protection to plaintiff's use of “hog” despite the
fact that plaintiff itself had begun to use the term
in connection with its merchandise, advertising, and
promotion. Harley–Davidson, 164 F.3d at 809. Here, as
already noted, the Complaint does not allege that plaintiff
itself ever used the nickname “9 West.”

There is a “9 West” on almost every cross-street in Manhattan,
and, thus, “9 West” surely retains a “generic meaning”
in the “language” of building addresses, which is how
plaintiff uses the name. Under the reasoning of Harley–
Davidson, therefore, plaintiff would not be permitted to
accord trademark significance to the public-created nickname
“9 West” in an action against another building that sought
to use it. Hence, if plaintiff cannot enforce the nickname
against another real estate company, then plaintiff should not
be permitted to enforce the “9 West” nickname against a shoe
and clothing company.
*8 Accordingly, plaintiff has no trademark right to the term
“9 West,” a nickname that, according to the Complaint, was
created and is used only by the public, and one that is generic.

CONCLUSION
Based on the foregoing, all of plaintiff's claims are barred
by the laches defense. In addition, plaintiff has failed to
sufficiently allege likelihood of confusion and ownership
rights in the name “9 West.” Hence, the Second Amended
Complaint is dismissed in its entirety, with prejudice, and the
Clerk of Court shall enter judgment accordingly.
SO ORDERED.

10

in the language as applied” to motorcycles. Id. The court
stated: “The public has no more right than a manufacturer
to withdraw from the language a generic term, already
applicable to the relevant category of products, and accord
End of Document

All Citations
Not Reported in F.Supp.2d, 2001 WL 736794
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2060

Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 6 Document 78-7

6

Ex. 7

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
William Feehan,
Plaintiff,
Case No. 2:20-cv-1771

vs.
Wisconsin Elections Commission, and its
members, Ann S. Jacobs, Mark L. Thomsen,
Marge Bostelman, Julie M. Glancey, Dean
Knudson, Robert F. Spindell, Jr., in their official
capacities, Governor Tony Evers, in his official
capacity,
Defendants.

BRIEF IN OPPOSITION TO PLAINTIFF’S MOTION FOR EMERGENCY
INJUNCTIVE RELIEF OF AMICUS CURIAE WISCONSIN STATE
CONFERENCE NAACP, DOROTHY HARRELL, WENDELL J.
HARRIS, SR., AND EARNESTINE MOSS
INTRODUCTION
This lawsuit should be dismissed with prejudice on the pleadings. It is but one of 40-plus
cases that have been filed around the country by President Trump or his political allies seeking to
invalidate the results of the November 3, 2020 presidential election. It is the fifth such suit in
Wisconsin alone, and a sixth has since been filed. The substance and timing of the instant case and
the extreme and unprecedented relief it seeks constitute a continuation of an equally unprecedented
abuse of the court system, to which credence need not and should not be given.
Plaintiff has already placed a significant enough burden on the Court, so the Wisconsin
State Conference NAACP and its three participating members, Dorothy Harrell, Wendell J. Harris,
Sr., and Earnestine Moss (collectively the “Wisconsin NAACP”) will endeavor to not repeat the

2061

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 13 Document 79

substantive arguments that we expect the parties will make. Rather, we seek to highlight some of
the stronger reasons why this Court should summarily dismiss this action. Three issues stand out:
(1) federal courts in particular are not the proper forum for suits like this; (2) Plaintiff’s inexcusable
delay in filing this action deprives him of the right to the relief he seeks; and (3) the relief he
seeks—the invalidation of approximately 3.2 million votes lawfully cast by eligible Wisconsin
voters—is so inapt, so wrong, indeed so absurd as to mandate rejection of Plaintiff’s plea without
further proceedings.
In offering this perspective, the proposed amici rely on the lessons taught by federal district
court and appellate judges in Pennsylvania, Georgia, and Michigan, who ruled that gussying up
run-of-the-mill state law claims and unsupported voter fraud claims as federal constitutional claims
is insufficient to invoke the jurisdiction of federal courts, and that suits brought even earlier than
this one were still brought too late. We rely also on the opinions of members of the Wisconsin
Supreme Court who, even while disagreeing on whether that court was the proper forum for an
original action challenging Wisconsin’s election results, raised serious threshold questions about
the availability of the extraordinary relief requested by the President and his allies in those cases.
Before proceeding, we offer one final thought. Wisconsin NAACP is not simply an
organization whose mission includes ensuring that voters’ votes are counted, important as that
mission is. It is dedicated specifically to advancing the interests of Black voters in our democracy.
To that end, the national NAACP has partnered with one of the country’s leading civil rights
organizations, the Lawyers’ Committee for Civil Rights Under Law, to work with experienced
local counsel in several states, including Wisconsin, to ensure that the votes of Black voters are
not invalidated in this election. It is no accident that Plaintiff’s focus in this case is on the voters
of Milwaukee County, home to Wisconsin’s largest city and Black population. This follows a
2

2062

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 13 Document 79

pattern wherein the Trump Campaign and its allies have singled out alleged “corruption” in other
cities with large Black populations. 1
Wisconsin NAACP respectfully asks this Court to scrutinize Plaintiff’s claims in that light,
and recognize them not only as an existential threat to our democracy—which they are—but also
as a particular threat to the votes of members of minority populations whose access to the ballot
box has been historically obstructed.
Plaintiff’s Complaint does not deserve a day in court.
ARGUMENT
I.

THESE CASES DO NOT BELONG IN FEDERAL COURT.
On November 9, 2020, the Trump Campaign filed suit in the Middle District of

Pennsylvania alleging a series of election improprieties, similar (and equally frivolous) to those
alleged by Plaintiff here. Donald J. Trump for President, Inc. v. Kathy Boockvar, No. 4:20-cv02078, 2020 WL 6821992 (Nov.21, 2020). 2 Initially, United States District Court Judge Matthew
Brann scheduled an evidentiary hearing on the plaintiffs’ motion for preliminary relief, but after
hearing oral argument on the defendants’ motion to dismiss, he not only adjourned the hearing
without resetting it, but denied the plaintiffs’ motion for leave to file a second amended complaint.
Trump v. Boockvar, 2020 WL 6821992 at *3-4, 14. On appeal, a unanimous panel of the Third
Circuit affirmed the denial of the request to amend the complaint, with Judge Stephanos Bibas
writing for the Court and ruling that the sort of claims asserted by the plaintiffs, even though

See e.g., Transcript of Oral Argument Proceedings in Re: Motion to Dismiss, Donald J. Trump for President v.
Boockvar, No. 20-3371 (M.D. Pa., Nov. 17, 2020), at 18-19 (President Trump’s lawyer Rudy Giuliani alleging massive
voter fraud in Philadelphia, Pittsburgh, Detroit, Milwaukee, and Atlanta).
1

As here, the claims included allegations that election officials improperly cured absentee ballots and restricted
observers.

2

3

2063

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 13 Document 79

repackaged as federal due process and equal protection claims, “boil down to issues of state law.”
Donald J. Trump for President, Inc v. Pa., No. 20-3371, 2020 WL 7012522 at *1 (3d Cir. Nov 27,
2020).
Similar claims led to the identical result in a suit filed on November 13, 2020 in the
Northern District of Georgia by L. Lin Wood, Jr.—who also serves as counsel for Plaintiff in this
action—in which he alleged a series of election irregularities as frivolous as are Plaintiff’s. claims
here. L. Lin Wood, Jr. v. Brad Raffensperger, No. 1:20-cv-04651-SDG, 2020 WL 6817513 (N.D.
Ga., Nov. 20, 2020). 3 The district court held a hearing, then denied Wood’s request for a temporary
restraining order. This past Saturday, December 5, the Eleventh Circuit, in an opinion by Chief
Judge Pryor, unanimously affirmed on grounds that the case was not justiciable in the first instance,
because federal courts are “courts of limited jurisdiction” and “may not entertain post-election
contests about garden-variety issues of vote counting and misconduct that may properly be filed
in state courts.” Wood v. Raffensperger, No. 20-14418, 2020 WL 7094866 at *1 (11th Cir., Dec.
5, 2020).
Most recently, Judge Linda Parker of the Eastern District of Michigan also denied the
Plaintiffs’ Emergency Motion for Declaratory, Emergency, and Permanent Injunctive Relief
challenging the election results in Michigan, particularly in Detroit, in a case brought by Sidney
Powell—lead counsel for plaintiff in this case—and others on November 25. King v. Whitmer, No.
20-13134, slip op. (E.D. Mich., Dec. 7, 2020). The district court ruled without hearing oral
argument. Id. at 6. The court found that Plaintiffs’ claims were not justiciable in federal court
because they were effectively state law claims brought against state officials. Id. at 10-13.

Wood alleged, among other things, that defendant had improperly accepted absentee ballots without signature
verification and restricted observers to the counting.

3

4

2064

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 13 Document 79

This case presents no reason for the Court to veer from the path taken by these sister courts.
The claims are substantially the same: alleged deviations from state court laws that govern the
handling and counting of absentee ballots and wild conspiracy theories about voting machines. As
in the Michigan, Georgia, and Pennsylvania cases, there are no allegations that any specific voter
was not qualified to vote or that any specific vote was fraudulently cast, and certainly no evidence
beyond mere speculation by Plaintiff and non-credible analyses by unqualified “experts” that there
were a sufficient number of fraudulent votes to affect the outcome of the Presidential election.
There is no reason for this Court to continue this case, and, as explained below, every reason for
this Court not to. This is even more true because there is an active suit in state circuit court brought
by President Trump alleging noncompliance with Wisconsin election law that will be decided at a
hearing on December 10, 2020.
II.

PLAINTIFF’S DELAY DEPRIVES HIM OF THE RIGHT TO SEEK RELIEF. 4
Plaintiff knew of the bases for the claims he has brought in this suit earlier than December

1, 2020 when he filed this suit. For example, the guidance by the Wisconsin Elections Commission
(the “Commission”) to local clerks regarding application of the “indefinitely confined” category
of eligibility for obtaining an absentee ballot during the COVID-19 pandemic was issued on
March 29, 2020, with an additional directive issued May 13, 2020, as Plaintiff himself alleges.
(Compl., ¶ 40.) 5 Likewise, the practice of local clerks filling in missing witness address
information on absentee ballot envelopes without requiring the presence of the voter has been
Wisconsin NAACP does not agree that Plaintiff has standing to bring this case in the first instance under the Electors
or Elections Clause, see Lance v. Coffman, 549 U.S. 437, 442 (2007); Corman v. Torres, 287 F.Supp.3d 558, 573
(M.D. Pa. 2018); Bognet v. Sec’y Commw. of Pa., No. 20-3214, 2020 WL 6686120, at *6-9 (3d Cir. Nov. 13, 2020);
Wood v. Raffensperger, et. al., No. 1:20-CV-04651-SDG, 2020 WL 6817513, at *5 (N.D. Ga. Nov. 20, 2020); King,
slip op. at 26-29, or under the due process and equal protection clauses. See King, slip op. at 24-25. We assume that
the parties will make the same argument and therefore will not repeat it here.
4

5

The related instructions from the Dane County Clerk were issued on March 25, 2020.

5

2065

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 13 Document 79

mandated by the Commission since at least October 18, 2016, as Plaintiff himself alleges. 6
(Compl., ¶ 44.) Plaintiff’s utterly baseless claims about widespread coordinated manipulation of
voting machines amount to nothing more than wild conspiracy theories, based principally on a
single redacted declaration from an anonymous witness. (See Compl., Exh. 1.) But even that
declaration was purportedly signed on November 15, 2020, and the declarant purported to have
knowledge of the bases for Plaintiff’s allegations as early as a decade prior. (Compl., Exh. 1, ¶¶
11-26.)
Nevertheless, Plaintiff did not file suit until a month after Election Day, waiting until well
after he learned on November 4 that President Trump had lost the election in Wisconsin and indeed
until after that result had been certified. Laches bars this suit because of Plaintiff’s lack of diligence
and the prejudice resulting from the delay. Indeed, in the Northern District of Georgia post-election
lawsuit, involving a state election that was called against the President much later than Wisconsin’s
and still filed seventeen days before this lawsuit, the district court found that laches applied.
Wood, 2020 WL 6817513 at * 6-9. Additionally, in the Eastern District of Michigan lawsuit, filed
five days before this case, the district court also found that laches applied. King, slip op. at 19
(“Plaintiffs could have lodged their constitutional challenges much sooner than they did, and
certainly not three weeks after Election Day and one week after certification of almost three million
votes. The Court concludes that Plaintiffs’ delay results in their claims being barred by laches.”).
The Georgia court’s decision squares with how courts have handled similar cases in the
past. Plaintiff may not “‘lay by and gamble upon [his favored candidate] receiving a favorable
decision of the electorate’ and then, upon losing, seek to undo the ballot results in a court action.”

It was merely reiterated on October 19, 2020, (Compl., ¶ 45), still weeks before the election, and a month and a half
before Plaintiff filed this suit.
6

6

2066

Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 13 Document 79

Hendon v. N.C. State Bd. of Elections, 710 F.2d 177, 182 (4th Cir. 1983) (quoting Toney v. White,
488 F.2d 310, 314 (5th Cir. 1973)).
Laches applies with particular rigor to election challenges, requiring “any claim against a
state electoral procedure [to] be expressed expeditiously.” Fulani, 916 F.2d at 1031. Before an
election, laches requires such claims to be promptly raised lest last-minute court orders confuse
voters, disincentivizing voting and undermining public confidence in the fairness of elections. See,
e.g., Purcell v. Gonzales, 549 U.S. 1, 4-5 (2006); Bognet v. Sec’y Commw. of Pa., No. 20-3214,
2020 WL 668120, at *17-18 (3d Cir. Nov. 13, 2020). And, after an election, laches generally bars
parties from challenging the election on grounds they could have raised beforehand. Soules v.
Kauaians for Nukoli Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988). Moreover, applying
laches avoids the “judicial fire drill[s]” and “mad scramble[s]” required to adjudicate belated
challenges to election procedures before post-election deadlines mandated by state law for
certification of results. Stein v. Cortés, 223 F.Supp.3d 423, 436 (E.D. Pa. 2016) (internal quotation
marks omitted).
Plaintiff offers no justification for delaying in asserting these claims until now—nor could
he, because there is none. Further, the delay is prima facie prejudicial, as the relief he requests
would void an entire election of more than 3.2 million eligible Wisconsin voters. See Hawkins v.
Wis. Elections Comm’n, 393 Wis.2d 629, 635 (2020) (denying petitioners’ ballot access claim
because, “given their delay in asserting their rights, [the court] would be unable to provide
meaningful relief without completely upsetting the election.”). And, by overturning the democratic
will of the people as expressed through their votes, Plaintiff’s requested relief would seriously and
irreparably undermine the Commission’s efforts to ensure public trust and confidence in
Wisconsin’s electoral system, including the trust and confidence of voters like those represented
7

2067

Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 13 Document 79

by the Wisconsin NAACP, who have always had to fight for recognition as equals and access to
the vote. See Hawkins, 393 Wis.2d at 635-636 (denying relief in ballot access case against the
Commission where it would cause “confusion and disarray and would undermine confidence in
the general election results.”). Most important, it would severely prejudice more than 3.2 million
Wisconsin voters who cast ballots for the presidential candidate of their choice during the 2020
General Election. Equity cannot possibly sanction such a result.
III.

THE REMEDY REQUESTED IS PROHIBITED AS A MATTER OF LAW.
Overturning the results of an election—as Plaintiff asks this Court to do—would be an

extraordinary intervention by the judiciary into democratic processes. Again, the recent Georgia,
Michigan, and Pennsylvania cases provide useful guidance. The District Court in Georgia captured
the compelling reasons why relief should not be granted in cases like this:
The Court finds that the threatened injury to Defendants as state officials and the
public at large far outweigh any minimal burden on Wood. To reiterate, Wood seeks
an extraordinary remedy: to prevent Georgia's certification of the votes cast in the
General Election, after millions of people had lawfully cast their ballots. To
interfere with the result of an election that has already concluded would be
unprecedented and harm the public in countless ways. [citations]. Granting
injunctive relief here would breed confusion, undermine the public's trust in the
election, and potentially disenfranchise of over one million Georgia voters. Viewed
in comparison to the lack of any demonstrable harm to Wood, this Court finds no
basis in fact or in law to grant him the relief he seeks.
Wood, 2020 WL 6817513 at * 13.
Similarly, as the Third Circuit stated, granting the kind of relief requested by Plaintiff
here—“throwing out millions of votes—is unprecedented.” Trump v. Pa., 2020 WL 7012522
at *7 (emphasis in original). In Pennsylvania, the Third Circuit rightly concluded that, “[v]oters,
not lawyers, choose the President. Ballots, not briefs, decide elections.” Id. at *9. Judge Parker
of the Eastern District of Michigan reached a similar conclusion: “[T]he Court finds that
8

2068

Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 13 Document 79

Plaintiffs are far from likely to succeed in this matter. In fact, this lawsuit seems to be less about
achieving the relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic orderly
statutory scheme established to challenge elections and to ignore the will of millions of voters.
This, the Court cannot, and will not, do. ¶ The People have spoken.” King, slip op., 35-36.
Indeed, granting Plaintiff’s requested relief would violate the longstanding principle that “all
qualified voters have a constitutionally protected right to vote and to have their votes counted.”
Reynolds v. Sims, 377 U.S. 533, 554 (1963) (citing Ex parte Yarbrough, 110 U.S. 651 (1884)
and United States v. Mosley, 238 U.S. 383 (1915)).
It is hard to imagine such a remedy could ever be appropriate, but certainly it is not here,
where Plaintiff has failed to put forth any credible evidence demonstrating that a single unlawful
vote was counted or valid ballot discarded. Nor has he pled a single cognizable claim. Plaintiff
instead alleges what amounts to a laundry list of speculative and circumstantial claims about the
potential for fraud and about the conduct of the election as a whole, which he asserts led to a
“fail[ure] to conduct the general election in a uniform manner,” (Compl., ¶ 117) and “disparate
treatment of Wisconsin voters,” (Compl., ¶ 144) related to the widespread use of mail-in ballots
by Wisconsin voters necessitated by the COVID-19 pandemic. But even if Plaintiff’s claims were
legitimate, invalidating the ballots of Wisconsin voters—who justifiably relied on the voting
procedures made available to them by the Wisconsin Legislature and the Commission—cannot
possibly be the appropriate remedy. Tossing out votes cast by eligible voters in reliance on official
instructions how to vote would violate the due process rights of every voter. See, e.g., Ne. Ohio
Coal. for Homeless v. Husted, 696 F.3d 580, 595, 597–98 (6th Cir. 2012) (holding that rejecting
ballots invalidly cast due to poll worker error likely violates due process).
9

2069

Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 13 Document 79

Further, contrary to Plaintiff’s allegations, this is not Bush v. Gore. There, the Supreme
Court specifically distinguished the issue before it—whether there existed arbitrary and disparate
variations in the standards applied to whether a ballot should be counted—from “[t]he question …
whether local entities, in the exercise of their expertise, may develop different systems for
implementing elections.” 531 U.S. at 109. The prevailing rule is that, absent such arbitrary
differences in the standards used to determine whether individual ballots should be counted or
not—an issue not even hinted at in Plaintiff’s blunderbuss challenge here—differences in election
administration between local entities are not only permissible, but expected. See, e.g., Short v.
Brown, 893 F.3d 671, 679 (9th Cir. 2018); Ne. Ohio Coal. for Homeless v. Husted, 837 F.3d at
636; Wexler v. Anderson, 452 F.3d 1226, 1231-33 (11th Cir. 2006); Hendon v. N.C. State Bd. of
Elections, 710 F.2d at 181; Paher v. Cegavske, No. 20-243, 2020 WL 2748301, at *9 (D. Nev.
May 27, 2020); Donald J. Trump for President, Inc. v. Boockvar, No. 2:20-CV-966, 2020 WL
5997680, at *44-45.
Plaintiff’s request for injunctive relief—directing Defendants to “de-certify the election
results,” “enjoining transmitting the currently certified results the Electoral College [sic],” and
“requiring Governor Evers to transmit certified election results that state that President Donald
Trump is the winner of the election,” inter alia, Compl., ¶ 142, is beyond bizarre. Federal courts
lack the authority to determine which results a state must certify, let alone to “de-certify” results
that have already been certified—and slate of Electors already submitted—under lawful
constitutionally-determined and state-law-provided mechanisms, so Plaintiff’s request cuts against
the institutional role of each branch of the republic and each level of government. Here, the
Wisconsin Legislature has already acted within its authority: it vested the right to vote for President
in the people of Wisconsin, and the right to vote includes the right to have that vote counted. See
10

2070 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 13 Document 79

Reynolds, 377 U.S. at 554 (1964); U. S. v. Classic, 313 U.S. 299, 315 (1941); U.S. v. Mosley, 238
U.S. 383, 386 (1915).
In that vein, the Wisconsin Supreme Court has recognized that a remedy that would nullify
the votes of millions of voters is simply a bridge too far. In the past two weeks, three original
actions were brought directly to the Wisconsin Supreme Court to change the result of the election.
In each, a majority of that court held that such actions need to be brought in the circuit court first,
if they can be brought at all. Trump v. Evers, No. 2020AP1971-OA (Wis. S. Ct., Dec. 3, 2020);
Mueller v. Wis. Elections Comm’n, No. 2020AP1958-OA (Wis. S. Ct. Dec. 4, 2020): Wis. Voters
Alliance v. Wis. Elections Comm’n, No. 2020AP1930-OA (Wis. S. Ct., Dec, 4, 2020).
Beyond simply disposing of the cases, Justice Hagedorn, in his concurrence joined by three
justices who comprised the majority in Wisconsin Voters Alliance, made clear that the remedies
sought by President Trump and his supporters would cause irreparable damage to our democracy
if granted or even given serious thought:
Something far more fundamental than the winner of Wisconsin’s electoral votes
is implicated in this case. At stake, in some measure, is faith in our system of free
and fair elections, a feature central to the enduring strength of our constitutional
republic. It can be easy to blithely move on to the next case with a petition so
obviously lacking, but this is sobering. The relief being sought by the petitioners
is the most dramatic invocation of judicial power I have ever seen. Judicial
acquiescence to such entreaties built on so flimsy a foundation would do indelible
damage to every future election. Once the door is opened to judicial invalidation
of presidential election results, it will be awfully hard to close that door again.
This is a dangerous path we are being asked to tread. The loss of public trust in
our constitutional order resulting from the exercise of this kind of judicial power
would be incalculable.
Wis. Voters Alliance, (slip. op. at 3) (Wis. Sup. Ct., Dec, 4, 2020) (Hagedorn, J., concurring). 7
Even Chief Justice Roggensack, while dissenting in all three cases on the grounds that the Wisconsin Supreme Court
should exercise original jurisdiction, acknowledged in one of her dissents that “[t]he remedy Petitioners seek may be
out of reach for a number of reasons.” Trump v. Evers, No. 2020AP1971-OA (slip. op. at 6) (Wis. S. Ct., Dec, 3, 2020)
(Roggensack, C.J., dissenting).
7

11

2071 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 13 Document 79

CONCLUSION
For the reasons set forth above, Wisconsin State Conference NAACP, Dorothy Harrell,
Wendell J. Harris, Sr., and Earnestine Moss respectfully requests that this Court summarily dismiss
this case.
Dated this 7th day of December 2020.
/s/ Joseph S. Goode
Joseph S. Goode (WI State Bar No. 1020886)
Mark M. Leitner (WI State Bar No. 1009459)
John W. Halpin (WI State Bar No. 1064336)
Allison E. Laffey (WI State Bar No. 1090079)
LAFFEY, LEITNER & GOODE LLC
325 E. Chicago Street
Suite 200
Milwaukee, WI 53202
(414) 312-7003 Phone
(414) 755-7089 Facsimile
jgoode@llgmke.com
mleitner@llgmke.com
jhalpin@llgmke.com
alaffey@llgmke.com

12

2072 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 13 Document 79

Kristen Clarke (admission pending)
Jon Greenbaum
Ezra Rosenberg
Ajay Saini (admission pending)
Jacob Conarck
Ryan Snow (admission pending)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street NW
9th Floor
Washington, DC 20005
(202) 662-8315 (phone)
(202) 783-0857 (fax)
kclarke@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org
erosenberg@lawyerscommittee.org
jconarck@lawyerscommittee.org
Attorneys for Amici Wisconsin State Conference
NAACP, Dorothy Harrell, Wendell J. Harris, Sr.,
and Earnestine Moss

13

2073 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 13 Document 79

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
MILWAUKEE DIVISION
WILLIAM FEEHAN and DERRICK VAN ORDEN,
Plaintiffs,

v.

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMANN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,

Case No.: 20CV1771

Defendants.
NOTICE OF SUPPLEMENTAL AUTHORITY
Defendant Governor Tony Evers files this Notice of Supplemental Authority to alert the
Court that the District of Arizona just dismissed a nearly-identical suit filed by Plaintiff’s counsel
there, Bowyer v. Ducey, No. 2:20-cv-2321 (Dec. 9, 2020). The Opinion and Order granting the
Motion to Dismiss is attached as Exhibit A.
The Bowyer Opinion rules against Plaintiffs on all grounds. First, it finds that Plaintiffs
have no standing under the Electors/Elections Clause or for their vote dilution claims. Ex. A. at 411. Second, it finds that abstention applies. Id. at 11-14. Third, the court holds that Eleventh
Amendment Immunity bars Plaintiffs’ claims. Id. at 14-16. Fourth, the court rules that laches bars
Plaintiffs’ claims. Id. at 16-21. Fifth, it holds that the case is moot. Id. at 21-22. Sixth, the court
finds that Plaintiffs have failed to state a claim. Id. at 22-27. Finally, the court finds that Plaintiffs

7773419v1/017030

2075

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 32 Document 81

do not meet any of the other requirements to obtain an injunction and in fact the requested
injunction would “greatly harm the public interest.” Id. at 28.
All these reasons apply in this nearly-identical case.
Respectfully submitted this 9th day of December 2020.
//s/ Davida Brook
Justin A. Nelson
Stephen E. Morrissey
Stephen Shackelford Jr.
Davida Brook
SUSMAN GODFREY L.L.P.
1000 Louisiana St., Suite 5100
Houston, TX 77002
(713) 651-9366
jnelson@susmangodfrey.com
smorrissey@susmangodfrey.com
sshackelford@susmangodfrey.com
dbrook@susmangodfrey.com
Jeffrey A. Mandell
Rachel E. Snyder
Richard A. Manthe
STAFFORD ROSENBAUM LLP
222 W. Washington Ave., Suite 900
Madison, WI 53701-1784
Telephone: 608-256-0226
Email: jmandell@staffordlaw.com
Email: rsnyder@staffordlaw.com
Email: rmanthe@staffordlaw.com
Paul Smith
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
(202) 736-2200
psmith@campaignlegalcenter.org
Attorneys for Defendant, Governor Tony Evers

2
Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 32 Document 81

7773419v1/017030

2076

Exhibit A

2077

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 1 of 29

1

WO

2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Tyler Bowyer, et al.,
Plaintiffs,

10
11

v.

12

Doug Ducey, et al.,

13

No. CV-20-02321-PHX-DJH
ORDER

Defendants.

14
15

Plaintiffs bring their Complaint seeking injunctive relief from this Court,

16

specifically, to “set aside the results of the 2020 General Election,” because they claim the

17

election process and results were “so riddled with fraud, illegality and statistical

18

impossibility . . . that Arizona voters, courts and legislators cannot rely on or certify” its

19

results. (Doc. 1 at 2). By any measure, the relief Plaintiffs seek is extraordinary. If granted,

20

millions of Arizonans who exercised their individual right to vote in the 2020 General

21

Election would be utterly disenfranchised. Such a request should then be accompanied by

22

clear and conclusive facts to support the alleged “egregious range of conduct in Maricopa

23

County and other Arizona counties . . . at the direction of Arizona state election officials.”

24

(Id.) Yet the Complaint’s allegations are sorely wanting of relevant or reliable evidence,

25

and Plaintiffs’ invocation of this Court’s limited jurisdiction is severely strained.

26

Therefore, for the reasons stated herein, the Complaint shall be dismissed.

27

I.

28

2078

Background
In Arizona, more than 3.4 million voters participated in the November 3, 2020,

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 2 of 29

1

General Election. Thereafter, pursuant to A.R.S. § 16-602, several counties performed a

2

hand count of sample ballots to test the tabulation equipment, and either no discrepancies

3

were found or, if there were, they were “within the acceptable margin.”1 Arizona law also

4

requires the secretary of state, in the governor’s presence, to certify the statewide canvas

5

on the fourth Monday after a general election. A.R.S. § 16-648. On November 30, 2020,

6

Secretary of State Katie Hobbs, in the presence of Governor Doug Ducey, certified the

7

statewide canvas. (Doc. 40 at 4). The Canvas shows that former Vice President Joseph

8

Biden prevailed over President Donald Trump by more than ten thousand votes.2 On that

9

same day, Governor Ducey signed the Certificate of Ascertainment for Vice President

10

Biden’s presidential electors. (Doc. 40 at 4). The Certificate was then transmitted to the

11

United States Archivist pursuant to the Electoral Count Act. (Id.); see also 3 U.S.C. § 6.

12

In their Complaint and the accompanying Motion for Temporary Restraining Order

13

(“TRO”) filed on December 2, Plaintiffs “contest” the election and ask this Court to compel

14

the Governor to “de-certify” these results. (Docs. 1 ¶ 145; 2 at 10). The Complaint also

15

requests that this Court grant a permanent injunction “enjoining Secretary Hobbs and

16

Governor Ducey from transmitting the currently certified election results to the Electoral

17

College,” declare the election results unconstitutional, and seize all voting machines,

18

equipment, software, and other election-related records and materials, including all ballots

19

cast.3 (Doc. 1 at 51–52). The Complaint claims to show “multifaceted schemes and

20

artifices implemented by Defendants and their collaborators” to defraud the election. (Id.

21

at ¶ 3). And these schemes allegedly resulted in “the unlawful counting, or fabrication, of

22

hundreds of thousands of illegal, ineligible, duplicate or purely fictitious ballots.” (Id.)

23

1

24
25
26
27
28

2079

Ariz. Sec’y of State, Summary of Hand Count Audits–2020 General Election (Nov. 17,
2020), https://azsos.gov/election/2020-general-election-hand-count-results.
2

Ariz.
Sec’y
of
State,
State
of
Arizona
Official
https://azsos.gov/sites/default/files/2020_General_State_Canvass.pdf.
3

Canvass,

Under 3 U.S.C. § 5, if a state enacts and applies procedures to decide election
controversies before election day, and a decision regarding a contested election is made at
least six days before the electors’ meetings, then the decision is conclusive and will apply
in counting the electoral votes. That deadline, referred to as the “safe harbor” deadline,
was December 8, 2020, as the Electoral College will meet on December 14, 2020. See 3
U.S.C. § 7.
-2Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 3 of 29

1

Of the fourteen named Plaintiffs, three are registered voters and GOP Chairs for

2

various Arizona counties. (Id. at ¶¶ 29–31). The remaining eleven are Republican

3

nominees for Arizona’s presidential electors. (Id. at ¶ 28). One of the eleven, Dr. Kelli

4

Ward, filed suit in state-court over allegations of fraud in this election. See Ward v.

5

Jackson, Case No. CV2020-015285, slip. op. (Ariz. Super. Ct. Dec. 4, 2020) (finding no

6

evidence of alleged fraud and dismissing claims of election misconduct); (Doc. 55-1). In

7

that case, on December 8, 2020, the Arizona Supreme Court affirmed the Maricopa County

8

Superior Court’s findings that there was no evidence of fraud or misconduct in Arizona’s

9

election. (Ward v. Jackson, CV2020-015285 (Ariz. 2020); (Doc. 81-1).

10

Plaintiffs’ Complaint contains four counts, three of which assert 42 U.S.C. § 1983

11

claims for violations of the Constitution’s Elections and Electors Clauses, as well as the

12

Fourteenth Amendment’s Due Process and Equal Protection guarantees. (Doc. 1 ¶¶ 103–

13

34). The final count, which does not specify a cause of action, is for “Wide-Spread Ballot

14

Fraud.” (Id. at ¶¶ 135–41).

15

On December 3, the day after Plaintiffs filed their Complaint, the Court received a

16

Motion to Intervene from the Arizona Democratic Party, which was subsequently denied.4

17

(Docs. 26 and 69). The Court also received a Motion to Intervene from the Maricopa

18

County Board of Supervisors and Maricopa County Recorder Adrian Fontes, which was

19

granted. (Docs. 27 and 32). The Court held a status conference on the same day, in which

20

it scheduled a December 8 hearing on the TRO. (Doc. 28). By subsequent Order (Doc.

21

43), the Court converted that hearing to oral argument on the Motions to Dismiss filed on

22

December 4. (Docs. 36, 38, and 40). Plaintiffs have filed their Response to the Motions

23

(Doc. 44), and Defendants have filed their Replies. (Docs. 53, 54, and 55). On December

24

8, 2020, the Court held oral argument on the Motions to Dismiss and took this matter under

25

advisement. Being fully briefed on the matter, the Court now issues its ruling.

26

…

27
28

2080

4

The Arizona Democratic Party sought intervention under theories of permissive joinder.
While the Court did not believe the Motion was inappropriate, the Court did not find their
presence necessary to this lawsuit and therefore denied the Motion to Intervene.
-3Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 4 of 29

1

II.

Analysis

2

Given the import of the overarching subject—a United States Presidential

3

Election—to the citizens of Arizona, and to the named Plaintiffs, the Court is compelled to

4

make clear why it finds it inappropriate to reach the merits of Plaintiffs’ Complaint and

5

why it must grant the Motions to Dismiss this matter in its entirety. The Court will

6

endeavor to lay bare the independent reasons for its conclusions, including those related to

7

Article III standing, abstention, laches, mootness, and the federal pleading standards, which

8

govern its review.

9

A.

Article III Standing

10

“To ensure that the Federal Judiciary respects the proper—and properly limited—

11

role of the courts in a democratic society, a plaintiff may not invoke federal-court

12

jurisdiction unless he can show a personal stake in the outcome of the controversy.” Gill

13

v. Whitford, 138 S. Ct. 1916, 1929 (2018) (internal citations omitted). Article III provides

14

that federal courts may only exercise judicial power in the context of “cases” and

15

“controversies.” U.S. Const. art. III, § 2, cl. 1; Lujan v. Defs. of Wildlife, 504 U.S. 555,

16

559 (1992). For there to be a case or controversy, the plaintiff must have standing to sue.

17

Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (“Spokeo II”). Whether a plaintiff

18

has standing presents a “threshold question in every federal case [because it determines]

19

the power of the court to entertain the suit.” Warth v. Seldin, 422 U.S. 490, 498 (1975).

20

“No principle is more fundamental to the judiciary’s proper role in our system of

21

government than the constitutional limitation of federal-court jurisdiction to actual cases

22

or controversies.” DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 341 (2006). A suit

23

brought by a plaintiff without Article III standing is not a “case or controversy,” and an

24

Article III federal court therefore lacks subject matter jurisdiction. Steel Co. v. Citizens for

25

a Better Environment, 523 U.S. 83, 101 (1998).

26

“[A] plaintiff seeking relief in federal court must first demonstrate . . . a personal

27

stake in the outcome,” Baker v. Carr, 369 U.S. 186, 204 (1962), distinct from a “generally

28

available grievance about government,” Lance v. Coffman, 549 U.S. 437, 439 (2007) (per

2081

-4Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 5 of 29

1

curiam). “That threshold requirement ensures that we act as judges, and do not engage in

2

policymaking properly left to elected representatives.” Gill, 138 S. Ct. at 1923. To

3

establish standing, a plaintiff has the burden of clearly demonstrating that she has: “(1)

4

suffered an injury in fact, (2) that is fairly traceable to the challenged conduct of the

5

defendant, and (3) that is likely to be redressed by a favorable judicial decision.” Spokeo

6

II, 136 S. Ct. at 1547 (quoting Warth, 422 U.S. at 518); accord Kokkonen v. Guardian Life

7

Ins. Co. of Am., 511 U.S. 375, 377 (1994) (noting the party asserting jurisdiction bears the

8

burden of establishing subject matter jurisdiction on a Rule 12(b)(1) motion to dismiss).

9

To establish an injury in fact, “a plaintiff must show that he or she suffered ‘an

10

invasion of a legally protected interest’ that is ‘concrete and particularized’ and ‘actual or

11

imminent, not conjectural or hypothetical.’” Spokeo, 136 S. Ct. at 1548 (quoting Lujan,

12

504 U.S. at 560). “When we have used the adjective ‘concrete, we have meant to convey

13

the usual meaning of the term—‘real,’ and not ‘abstract.’” Id. The plaintiff must establish

14

a “particularized” injury, which means that “the injury must affect the plaintiff in a personal

15

and individual way.” Raines v. Byrd, 521 U.S. 811, 819 (1997). Moreover, “[a]lthough

16

imminence is concededly a somewhat elastic concept, it cannot be stretched beyond its

17

purpose, which is to ensure that the alleged injury is not too speculative for Article III

18

purposes—that the injury is certainly impending.” Clapper v. Amnesty Int’l USA, 568 U.S.

19

398, 409 (2013). Where a plaintiff has not established the elements of standing, the case

20

must be dismissed pursuant to Federal Rule of Civil Procedure 12(b)(1).

21

Rule 12(b)(1) authorizes a court to dismiss claims over which it lacks subject-matter

22

jurisdiction. A Rule 12(b)(1) challenge may be either facial or factual. Safe Air for

23

Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In a facial attack, the court may

24

dismiss a complaint when the allegations of and documents attached to the complaint are

25

insufficient to confer subject-matter jurisdiction. See Savage v. Glendale Union High Sch.

26

Dist. No. 205, 343 F.3d 1036, 1039 n.2 (9th Cir. 2003). In this context, all allegations of

27

material fact are taken as true and construed in the light most favorable to the nonmoving

28

party. Fed’n of African Am. Contractors v. City of Oakland, 96 F.3d 1204, 1207 (9th Cir.

2082

-5Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 6 of 29

1

1996). In contrast, when a court evaluates a factual challenge to jurisdiction, a court is

2

“free to weigh the evidence and satisfy itself as to the existence of its power to hear the

3

case.”

4

jurisdiction, the district court may review evidence beyond the complaint without

5

converting the motion to dismiss into a motion for summary judgment.”).

Safe Air for Everyone, 373 F.3d at 1039 (“In resolving a factual attack on

1.

6

Elections and Electors Clause – Count One

7

Plaintiffs allege in Count One that Defendants violated the Elections and Electors

8

Clauses and 28 U.S.C. § 1983 by, among other things, losing or destroying absentee ballots,

9

and/or replacing those ballots with “blank ballots filled out by election workers, Dominion

10

or other third parties” sending thousands of absentee ballots to someone besides the

11

registered voter that “could have been filled out by anyone.” (Doc. 1 at 41). Defendants

12

argue that Plaintiffs do not have standing to assert such a claim. (Doc. 40 at 8–9).

13

The Elections Clause of the United States Constitution states: “The Times, Places

14

and Manner of holding Elections for Senators and Representatives, shall be prescribed in

15

each State by the Legislature thereof[.]” U.S. Const. art. I, § 4, cl. 1. The Elections Clause

16

authorizes the state governments to regulate federal elections held in the state, while

17

Congress retains “exclusive control” to alter a state’s regulations. Colegrove v. Green, 328

18

U.S. 549, 554 (1946). A separate provision, the “Electors Clause” of the Constitution,

19

states: “Each State shall appoint, in such Manner as the Legislature thereof may direct, a

20

Number of Electors . . . .” U.S. Const. art. II, § 1, cl. 2.5

21

Plaintiffs’ Complaint alleges that Defendants violated the Elections Clause.

22

However, the Complaint does not allege grounds for standing to assert this claim, nor does

23

it distinguish between the status of the groups of Plaintiffs. At oral argument, Plaintiffs’

24
25
26
27
28

2083

5

While the Electors Clause and Elections Clause are separate Constitutional provisions,
they share “considerable similarity.” Ariz. State Leg. v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787, 839, (2015) (Roberts, C.J., dissenting). These provisions are therefore often
considered together. See Bognet v. Sec’y of Commonwealth of Pa., 980 F.3d 336, 348–52
(3d Cir. 2020) (analyzing standing for Elections Clause and Electors Clause under the same
test); Wood v. Raffensperger, 2020 WL 6817513, at *1 (N.D. Ga. Nov. 20, 2020) (same);
U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 804–05 (1995) (holding that state’s
“duty” under Elections Clause “parallels the duty” described by Electors Clause). Plaintiffs
do not meaningfully distinguish between the two clauses in their Complaint or briefing.
-6Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 7 of 29

1

counsel stated that eleven of the Plaintiffs were Republican Party nominees to be electors,

2

and the other three were county GOP Chairs. As an initial matter, Plaintiffs’ briefing does

3

not contain any arguments that the GOP Chairs have standing to assert this claim and the

4

Court will dismiss the claim as to the GOP Chairs outright.

5

Plaintiffs argue that the Plaintiff Electors should be considered “candidates,” and

6

thus that they have standing under the Electors and Elections Clause pursuant to an Eighth

7

Circuit case, Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020). (Doc. 44 at 5). That case,

8

which is based on the operation of Minnesota state election law, allowed electors to bring

9

claims under the Elections Clause because electors were treated as candidates for office

10

under Minnesota law and thus would be injured by the governor’s failure to seat them if

11

chosen as the state’s electors. See Carson, 978 F.3d at 1057.

12

Plaintiff Electors likewise assert that under Arizona law they should also be

13

considered “candidates.” (Doc. 44 at 5–6) (citing A.R.S. § 16-344). However, the Electors

14

are not candidates for office as the term is generally understood. Arizona law makes clear

15

that the duty of an Elector is to fulfill a ministerial function, which is extremely limited in

16

scope and duration, and that they have no discretion to deviate at all from the duties

17

imposed by the statute. See A.R.S. § 16-212(C) (“After the secretary of state issues the

18

statewide canvass containing the results of a presidential election, the presidential electors

19

of this state shall cast their electoral college votes for the candidate for president and the

20

candidate for vice president who jointly received the highest number of votes in this state

21

as prescribed in the canvass.”) (emphasis added). Arizona voters do not show up to vote

22

for any single Electors listed next to the presidential candidates’ names; they vote for their

23

preferred presidential candidate. By specifying that the electors “shall be enclosed in a

24

bracketed list” next to “the surname of the presidential candidate and vice-presidential

25

candidate,” A.R.S. § 16-507(B) clarifies and distinguishes the Electors’ ministerial status

26

from that of the presidential candidate running for office, the latter who unquestionably

27

suffers the discrete injury required for standing.6 Notably, the Republican candidate whose

28

6

A.R.S. § 16-507(B) in its entirety reads: “Presidential electors, which, shall be enclosed
in a bracketed list and next to the bracketed list shall be printed in bold type the surname
-7-

2084 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 8 of 29

1

name was on the ballot is not a plaintiff in this case.

2

Other circuit courts to reach the issue have cited the Carson decision with

3

disapproval, noting that there was no precedent for expanding standing in the way that it

4

did.7 See Bognet v. Sec’y of Commonwealth of Pa., 980 F.3d 336, 351 n.6 (3d Cir. 2020)

5

(“Our conclusion departs from the recent decision of an Eighth Circuit panel which, over

6

a dissent, concluded that candidates for the position of presidential elector had standing

7

under Bond [v. United States, 564 U.S. 211 (2011)] to challenge a Minnesota state-court

8

consent decree that effectively extended the receipt deadline for mailed ballots. . . . The

9

Carson court appears to have cited language from Bond without considering the context—

10

specifically, the Tenth Amendment and the reserved police powers—in which the U.S.

11

Supreme Court employed that language. There is no precedent for expanding Bond beyond

12

this context, and the Carson court cited none.”). Indeed, as numerous other courts have

13

held, where, as here, the injury alleged by plaintiffs is that defendants failed to follow the

14

Elections Clause, the Supreme Court has stated that the “injury is precisely the kind of

15

undifferentiated, generalized grievance about the conduct of government that [courts] have

16

refused to countenance.” Lance, 549 U.S. at 442.

17

Elector Plaintiffs have not established they can personally bring suit, and therefore,

18

they do not have standing to bring Count One.8 Therefore, the Court will dismiss Count

19

of the presidential candidate and vice-presidential candidate who is seeking election jointly
with the presidential candidate shall be listed directly below the name of the presidential
candidate. The indicator for the selection of the presidential and vice-presidential
candidates shall be directly next to the surname of the presidential candidate, and one mark
directly next to a presidential candidate’s surname shall be counted as a vote for each
elector in the bracketed list next to the presidential and vice-presidential candidates.”

20
21
22
23
24
25
26
27
28

See also Carson, 78 F.3d at 1063 (Kelly, J., dissenting) (“I am not convinced the Electors
have Article III standing to assert claims under the Electors Clause. Although Minnesota
law at times refers to them as ‘candidates,’ see, e.g., Minn. Stat. § 204B.03 (2020), the
Electors are not candidates for public office as that term is commonly understood. Whether
they ultimately assume the office of elector depends entirely on the outcome of the state
popular vote for president. Id. § 208.04 subdiv. 1 (‘[A] vote cast for the party candidates
for president and vice president shall be deemed a vote for that party’s electors.’). They are
not presented to and chosen by the voting public for their office, but instead automatically
assume that office based on the public’s selection of entirely different individuals.”).
7

8

The Court notes that Count One of the Complaint makes passing references to the “VRA
and HAVA,” (the Voting Rights Act and the Help America Vote Act of 2002) but does not
bring any claims under these statutes. (Doc. 1 ¶ 106).
-8-

2085 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 9 of 29

1
2

One.
2.

Vote Dilution – Count Two

3

In Count Two, Plaintiffs allege Equal Protection violations based on Defendants’

4

failure to comply with Arizona law by permitting “illegal votes,” allowing “voting fraud

5

and manipulation,” and in preventing “actual observation and access to the elector

6

process,” which allegedly resulted in “the dilution of lawful votes . . . and the counting of

7

unlawful votes.” (Doc. 1 at 45). Plaintiffs ask the Court to order that “no ballot processed

8

by a counting board in Arizona can be included in the final vote tally unless a challenger

9

[i]s allowed to meaningfully observe the process.” (Doc 1 ¶ 120). Absent from the

10

Complaint is an allegation that Plaintiffs (or any registered Arizona voter for that matter)

11

were deprived of their right to vote. Instead, they bring baseless claims of “disparate

12

treatment of Arizona voters, in subjecting one class of voters to greater burdens or scrutiny

13

than another.” (Doc. 1 ¶ 115). They do not allege what “class” of voters were treated

14

disparately. Nor do the Elector Plaintiffs cite to any authority that they, as “elector

15

delegates,” are a class of protected voters. Defendants contend that Plaintiffs do not have

16

standing to assert these claims and point out that these allegations are nothing more than

17

generalized grievances that any one of the 3.4 million Arizonans who voted could make if

18

they were so allowed. The Court agrees.

19

Here, Plaintiffs have not alleged a concrete harm that would allow the Court to find

20

Article III Standing for their vote dilution claim. As courts have routinely explained, vote

21

dilution is a very specific claim that involves votes being weighed differently and cannot

22

be used generally to allege voter fraud.

23

conceptualization, vote dilution under the Equal Protection Clause is concerned with votes

24

being weighed differently.” Bognet, 980 F.3d at 355; see also Rucho v. Common Cause, –

25

–– U.S. ––––, 139 S. Ct. 2484, 2501 (2019) (“[V]ote dilution in the one-person, one-vote

26

cases refers to the idea that each vote must carry equal weight.”). “This conceptualization

27

of vote dilution—state actors counting ballots in violation of state election law—is not a

28

concrete harm under the Equal Protection Clause of the Fourteenth Amendment. Violation
-9-

“Contrary to the Voter Plaintiffs’

2086 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 10 of 29

1

of state election laws by state officials or other unidentified third parties is not always

2

amenable to a federal constitutional claim.” Bognet, 980 F.3d at 355; see also Shipley v.

3

Chicago Bd. of Election Comm’rs, 947 F.3d 1056, 1062 (7th Cir. 2020) (“A deliberate

4

violation of state election laws by state election officials does not transgress against the

5

Constitution.”); Powell v. Power, 436 F.2d 84, 88 (2d Cir. 1970) (rejecting Equal

6

Protection claim where allegations of state’s erroneous counting of votes cast by voters

7

unqualified to participate).

8

Additionally, Plaintiffs cannot sustain their Equal Protection Clause claim on a vote

9

dilution theory. See Bognet, 980 F.3d at 355 (rejecting Equal Protection theory and

10

explaining “[t]his conceptualization of vote dilution—state actors counting ballots in

11

violation of state election law—is not a concrete harm under the Equal Protection Clause

12

of the Fourteenth Amendment”); see also Shipley, 947 F.3d at 1062 (“A deliberate violation

13

of state election laws by state election officials does not transgress against the

14

Constitution”) (internal citations omitted); Am. Civil Rights Union v. Martinez-Rivera, 166

15

F. Supp. 3d 779, 789 (W.D. Tex. 2015) (holding that allegations of “vote dilution” as a

16

result of alleged voting process irregulates “[are] speculative and, as such, are more akin

17

to a generalized grievance about the government than an injury in fact.”); Powell, 436 F.2d

18

at 88 (rejecting Equal Protection Clause claim arising from state’s erroneous counting of

19

votes cast by voters unqualified to participate in closed primary); Snowden v. Hughes, 321

20

U.S. 1, 11 (1944) (“It was not intended by the Fourteenth Amendment . . . that all matters

21

formerly within the exclusive cognizance of the states should become matters of national

22

concern.”).

23

Setting aside that Plaintiffs’ claims regarding the election are not viable vote

24

dilution claims, Plaintiffs also have not requested relief that is redressable in a tailored way

25

as is required. See Gill, 138 S. Ct. at 1934 (“A plaintiff’s remedy must be tailored to redress

26

the plaintiff’s particular injury.”); see also Lewis v. Casey, 518 U.S. 343, 357 (1996) (“The

27

remedy must of course be limited to the inadequacy that produced the injury in fact that

28

the plaintiff has established.”). Therefore, even if Plaintiffs could somehow establish that
- 10 -

2087 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 11 of 29

1

their vote dilution claim was more than a generalized grievance to the point of asserting an

2

injury, Plaintiffs have not established that the Court can redress this grievance. To give

3

Plaintiffs the relief they desire would disenfranchise the nearly 3.4 million Arizonans that

4

voted in the 2020 General Election. Under Plaintiffs’ theory of dilution, this would

5

transform all of the alleged diluted votes from being “diluted” to being destroyed. As

6

Plaintiffs raise “only a generally available grievance about government—claiming only

7

harm to his and every citizen’s interest in proper application of the Constitution and laws,

8

and seeking relief that no more directly and tangibly benefits him than it does the public at

9

large,” the Court finds that Plaintiffs’ Count Two “does not state an Article III case or

10

controversy.” See Lance, 549 U.S. 437 at 439. Therefore, Plaintiffs do not have standing

11

to bring suit in this forum.9

12

B.

13

Defendants also argue the Court should abstain from reaching Plaintiffs’ claims

14

based on their similarities with ongoing state court cases. Yesterday, the Arizona Supreme

15

Court ruled on one such case—filed by Dr. Kelli Ward—seeking to “set aside the 2020

16

General Election results.” See Ward, CV 2020-015285 (Ariz. 2020); (Doc. 81-1). That

17

case was filed pursuant to A.R.S. § 16-672 and was also filed after Governor Ducey

18

certified the election results on November 30, 2020. (Doc. 58-1 at 17). The Ward plaintiffs

19

alleged an insufficient opportunity to observe election officials, an overcounting of mail-

20

in ballots by not adequately comparing signatures on the ballot envelopes, and errors in the

21

ballot duplication process. (Id. at 17–21). After an evidentiary hearing, the Maricopa

22

County Superior Court issued a ruling on December 4, 2020, finding that there was no

23

misconduct, fraud, or effect on the outcome of the election. 10 (Id.) This ruling was

24

9

25
26
27
28

Abstention

Having established that the Court does not have jurisdiction over Plaintiffs’ Counts One
through Three, the Court will decline to exercise supplemental jurisdiction over Count
Four, which pleads no federal cause of action and is entirely based on alleged fraud under
Arizona law.
10

Judge Randall H. Warner of the Maricopa County Superior Court addressed Ward’s
allegations of election misconduct. First, Ward argued that there was an insufficient
opportunity to observe the actions of election officials. The State Court dismissed that
claim as untimely, holding that “[t]he observation procedures for the November general
election were materially the same as for the August primary election, and any objection to
- 11 -

2088 Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 12 of 29

1

unanimously affirmed by an en banc panel of the Arizona Supreme Court on expedited

2

review.11

3

Here, Plaintiffs’ Complaint similarly relies upon A.R.S. § 16-672 and its provisions

4

related to bringing suit for alleged election misconduct, including illegal votes and

5

erroneous counting. (Doc. 1 at ¶ 15). A.R.S. § 16-672 also provides that an elections

6

contest brought under this statute should be filed in the superior court of the county in

7

which the person contesting resides or in the superior court of Maricopa county. A.R.S. §

8

16-672(B). Plaintiffs aver that their claims seek federal action under federal statutes, and

9

therefore, their claims are distinguishable from the claims being litigated in the state court.

10

The Court disagrees.

11

Generally, a federal court has a duty to exercise the jurisdiction conferred by

12

Congress. However, under certain circumstances, it is prudent for a federal court to abstain

13

from hearing a matter. “Indeed, we have held that federal courts may decline to exercise

14

its jurisdiction, in otherwise ‘exceptional circumstances,’ where denying a federal forum

15

would clearly serve an important countervailing interest.” Quackenbush v. Allstate Ins.

16
17
18
19
20
21
22
23
24
25
26
27
28

them should have been brought at a time when any legal deficiencies could have been
cured,” and citing Lubin v. Thomas, 144 P.3d 510, 511 (Ariz. 2006) (“In the context of
election matters, the laches doctrine seeks to prevent dilatory conduct and will bar a claim
if a party’s unreasonable delay prejudices the opposing party or the administration of
justice.”). Second, Ward alleged that “election officials overcounted mail-in ballots by not
being sufficiently skeptical in their comparison of signatures on the mail-in
envelope/affidavits with signatures on file.” The state court allowed Ward to examine a
sampling of mail-in ballots, and the court held that “[t]he evidence does not show that these
affidavits are fraudulent, or that someone other than the voter signed them. There is no
evidence that the manner in which signatures were reviewed was designed to benefit one
candidate or another, or that there was any misconduct, impropriety, or violation of Arizona
law with respect to the review of mail-in ballots.” Lastly, Ward alleged errors with
duplication of ballots. The state court also allowed Ward to examine a sampling of
duplicate ballots and held that ‘[t]he duplication process prescribed by the Legislature
necessarily requires manual action and human judgment, which entail a risk of human
error. Despite that, the duplication process for the presidential election was 99.45%
accurate. And there is no evidence that the inaccuracies were intentional or part of a
fraudulent scheme. They were mistakes. And given both the small number of duplicate
ballots and the low error rate, the evidence does not show any impact on the outcome.”
The state court concluded by holding that “[t]he Court finds no misconduct, no fraud, and
no effect on the outcome of the election.” Ward, CV 2020-015285 (Ariz. Super. Ct. Dec.
4, 2020); (Doc. 58-1).
11

“The Court concludes, unanimously, that the trial judge did not abuse his discretion in
denying the request to continue the hearing and permit additional inspection of the ballots.”
Ward, CV 2020-015285, at *7 (Ariz. 2020); (Doc. 81-1).
- 12 -

2089 Case 2:20-cv-01771-PP Filed 12/09/20 Page 15 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 13 of 29

1

Co., 517 U.S. 706, 716 (1996) (citing County of Allegheny v. Frank Mashuda Co., 360 U.S.

2

185, 189 (1959)). Abstention may be “warranted by considerations of proper constitutional

3

adjudication, regard for federal-state relations, or wise judicial administration.”

4

Colorado River abstention permits a federal court to abstain from exercising jurisdiction

5

over a matter in deference to a state court suit regarding similar claims and allegations.

6

Colorado River Water Conservation District v. United States, 424 U.S. 800, 813, 817

7

(1976).

Id.

8

The Ninth Circuit has enumerated an eight-part test for whether Colorado River

9

abstention is warranted, stressing that the factors are “not a mechanical checklist,” with

10

some factors that “may not have any applicability to a case.” Seneca Ins. Co., Inc. v.

11

Strange Land, Inc., 862 F.3d 835, 841–42 (9th Cir. 2017). The factors are: (1) which court

12

first assumed jurisdiction over any property at stake; (2) the inconvenience of the federal

13

forum; (3) the desire to avoid piecemeal litigation; (4) the order in which the forums

14

obtained jurisdiction; (5) whether federal law or state law provides the rule of decision on

15

the merits; (6) whether the state court proceedings can adequately protect the rights of the

16

federal litigants; (7) the desire to avoid forum shopping; and (8) whether the state court

17

proceedings will resolve all issues before the federal court. Id.

18

Factors two through seven all support abstaining from this case.12 To begin, this

19

federal forum is less convenient than the state forum, considering the state election law

20

violations alleged, the claims are brought against state actors, and the interplay of state

21

election law. Moreover, the present suit reflects the very essence of “piecemeal litigation,”

22

with many of the same parties and attorneys litigating related matters in both forums. As

23

to the primacy of cases, this case was the last filed case. All of the state court litigation

24

filed related to the election preceded this action. As to the nature of the claims, while

25

Plaintiffs bring their claims under federal laws, the crux of their arguments, and the statutes

26

upon which they rely, involve Arizona election law and the election procedures carried out

27

at the county and state level by state officials. The state courts are adequately equipped to

28

12

The Court finds that the first factor is not relevant to the facts alleged herein.
- 13 -

2090 Case 2:20-cv-01771-PP Filed 12/09/20 Page 16 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 14 of 29

1

protect the rights of the named Plaintiffs, especially considering that Plaintiff Ward already

2

pursued her grievances there. Moreover, as Congress has conferred concurrent jurisdiction

3

on state courts to adjudicate Section 1983 claims, there is no concern that the state is unable

4

to adjudicate Plaintiffs’ Section 1983 claims. Felder v. Casey, 487 U.S. 131, 139 (1988).

5

Lastly, abstention would alleviate the necessity to consider whether this matter was filed

6

in this Court as a form of forum shopping, especially considering that a number of other

7

related state court lawsuits have already been disposed of. The eighth factor is the only

8

factor that weighs against abstention, as it does not appear that Plaintiffs’ allegations of

9

widespread fraud in relation to the tabulation systems and software were before the state

10

court. However, as discussed infra, the Court finds that claim lacks Rule 9(b) particularity

11

and plausibility.

12

Moreover, when considering abstention, “proper constitutional adjudication, regard

13

for federal-state relations, or wise judicial administration,” also inform this Court.

14

Quackenbush, 517 U.S. at 716. If the Court were to reach the merits of Plaintiffs’ claims,

15

it would be entirely possible today for it to reach a different legal determination, or the

16

same conclusion but with a different analysis, than the Arizona Supreme Court reached in

17

Ward v. Jackson. The Court cannot think of a more troubling affront to “federal-state

18

relations” than this. See Quackenbush, 517 U.S. at 716. Therefore, the Court finds that

19

abstention of these parallel issues is appropriate and indeed necessary.

20

C.

21

Defendants also argue that the Eleventh Amendment bars Plaintiffs’ demands for

22

relief because they, as state officials who have not consented to being sued, are immune

23

from suit. Further, they argue that no exception applies, that the relief Plaintiffs seek is not

24

prospective, and that the claims are barred.

25
26
27
28

Eleventh Amendment

The Eleventh Amendment to the Constitution provides:
The Judicial power of the United States shall not be construed to
extend to any suit in law or equity, commenced or prosecuted against
one of the United States by Citizens of another State, or by Citizens
or Subjects of any Foreign State.
- 14 -

2091 Case 2:20-cv-01771-PP Filed 12/09/20 Page 17 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 15 of 29

1

U.S. Const. amend. XI. Such immunity applies when a citizen brings a claim against their

2

own state. See Hans v. Louisiana, 134 U.S. 1, 19 (1890). The immunity extends to “suit[s]

3

against state officials when the state is the real, substantial party in interest.” Pennhurst

4

State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100 (1984). “This jurisdictional bar applies

5

regardless of the nature of the relief sought.” Id. “When the suit is brought only against

6

state officials, a question arises as to whether that suit is a suit against the State itself.” Id.

7

at 101. “The general rule is that a suit is against the sovereign . . . if the effect of the

8

judgment would be to restrain the Government from acting, or to compel it to act.” Dugan

9

v. Rank, 372 U.S. 609, 620 (1963).

10

There are three recognized exceptions to the above: (1) Congress has abrogated the

11

immunity within a federal statute; (2) the State has waived immunity and allowed

12

individuals to sue it pursuant to specific state statutes; and (3) in “claims seeking

13

prospective injunctive relief against state officials to remedy a state’s ongoing violation of

14

federal law.” Ariz. Students’ Ass’n v. Ariz. Bd. of Regents, 824 F.3d 858, 865 (9th Cir.

15

2016) (citing Ex parte Young, 209 U.S. 123 (1908)) (emphasis added).

16

None of these exceptions are present here. As for Plaintiffs’ 42 U.S.C. § 1983

17

claims, Congress did not abrogate the states’ immunity from suit in the enacting language

18

of Section 1983, and therefore, the Eleventh Amendment bars those claims. See Will v.

19

Michigan Dep’t of State Police, 491 U.S. 58, 66 (1989) (holding that Section 1983 “does

20

not provide a federal forum for litigants who seek a remedy against a State for alleged

21

deprivations of civil liberties”). Plaintiffs provided no argument or authority that the state

22

has explicitly waived its immunity for elections challenges.

23

exception does not apply. As for the remaining claims, the Court must determine whether

24

Plaintiffs are seeking prospective relief to cure an ongoing violation of federal law.

Therefore, the second

25

“In determining whether the doctrine of Ex parte Young avoids an Eleventh

26

Amendment bar to suit, a court need only conduct a straightforward inquiry into whether

27

[the] complaint alleges an ongoing violation of federal law and seeks relief properly

28

characterized as prospective.” Verizon Md., Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 645
- 15 -

2092 Case 2:20-cv-01771-PP Filed 12/09/20 Page 18 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 16 of 29

1

(2002) (internal citations omitted). However, where the claims are state law claims,

2

masked as federal law claims, Ex parte Young is inapplicable and the Eleventh Amendment

3

clearly bars the suit. See Massey v. Coon, 865 F.2d 264 (9th Cir. 1989) (affirming dismissal

4

where “on its face the complaint states a claim under the due process and equal protection

5

clauses of the Constitution, [but] these constitutional claims are entirely based on the

6

failure of defendants to conform to state law”); see also Pennhurst, 465 U.S. at 90 (“[W]hen

7

a plaintiff alleges that a state official has violated state law” and “when a federal court

8

instructs state officials on how to conform their conduct to state law, this conflicts directly

9

with the principles of federalism that underlie the Eleventh Amendment.”). This is true

10

whether the relief requested is “prospective or retroactive” in nature. Pennhurst, 465 U.S.

11

at 106.

12

Here, Plaintiffs face a number of difficulties in their attempt to pierce Defendants’

13

sovereign immunity. Defendants argue that all of Plaintiffs’ allegations are actually state

14

law allegations masked under federal law. Defendants point to numerous instances in

15

Plaintiffs’ Complaint where Arizona state election law is relied on, including their catch-

16

all fraud claims, which are entirely based on state law. The Eleventh Amendment clearly

17

bars such claims. See Pennhurst, 465 U.S. at 106 (“On the contrary, it is difficult to think

18

of a greater intrusion on state sovereignty than when a federal court instructs state officials

19

on how to conform their conduct to state law.”).

20

However, even assuming that Plaintiffs established that their claims are indeed

21

independent federal claims, it is unclear what ongoing violation of federal law is being

22

asserted. Plaintiffs allege Due Process and Equal Protection claims, along with a catch-all

23

fraud claim, that arise from Defendants’ alleged failure to follow Arizona state election

24

laws. (Doc. 1 at ¶¶ 106–120). These numerous alleged violations—related to alleged

25

issues with signature verification, ballot duplication, and poll observation—concern past

26

conduct.13 The relief requested—compelling the Governor to decertify the election—

27

13

28

These include objections regarding poll watchers’ ability to observe ballot counting,
issues related to the manner and process by which Arizona election officials matched
signatures on absentee ballots (Doc. 1 at ¶¶ 46–48); issues related to the process and role
assigned to poll referees in settling unresolved disputes between adjudicators (Id. at ¶ 49);
- 16 -

2093 Case 2:20-cv-01771-PP Filed 12/09/20 Page 19 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 17 of 29

1

similarly seeks to alter past conduct. Plaintiffs have not identified an ongoing violation to

2

enjoin. In short, “Plaintiffs are seeking to undo what has already occurred, as their

3

requested relief reflects.” See King v. Whitmer, 2020 WL 7134198, at *5 (E.D. Mich. Dec.

4

7, 2020).

5

The Eleventh Amendment bars the injunctive relief sought.

6

D.

7

Defendants also argue that the doctrine of laches bars Plaintiffs’ claims. Laches

8

will bar a claim when the party asserting it shows the plaintiff unreasonably delayed in

9

filing the action and the delay caused prejudice to the defendant or the administration of

10

justice. Danjaq LLC v. Sony Corp., 263 F.3d 942, 951–52 (9th Cir. 2001) (noting that

11

laches requires a “defendant [] prove both an unreasonable delay by the plaintiff and

12

prejudice to itself”). Laches can bar untimely claims for relief in election cases, even when

13

the claims are framed as constitutional challenges.

14

Campaign Comm., 849 F.2d 1176, 1181 (9th Cir. 1988); U.S. v. Clintwood Elkhorn Min.

15

Co., 553 U.S. 1, 9 (2008) (“[A] ‘constitutional claim can become time-barred just as any

16

other claim can.’”) (quoting Block v. North Dakota ex rel. Board of Univ. and School

17

Lands, 461 U.S. 273, 292 (1983)).

Laches

Soules v. Kauaians for Nukolii

18

Plaintiffs filed their Complaint and request for TRO seeking to “de-certify” the

19

election results on December 2, 2020, nearly a month after the General Election on

20

November 3, 2020. Plaintiffs conclusively argue that they waited this long because they

21

“could not have known the basis of their claim, or presented evidence substantiating their

22

claim, until after the election.” (Doc. 44 at 9). They further state that, because “Arizona

23

election officials and other third parties did not announce or publicize their misconduct,

24

and in fact prevented Republican poll watchers from observing the ballot counting and

25

handling, it took Plaintiffs additional time post-election to gather the fact and expert

26

witness testimony presented in the Complaint.” (Id.) During oral argument, Plaintiffs’

27

counsel repeatedly stated that the alleged fraud related to the Dominion voting machines

28

“irregularities” with the voting machines (Id. at ¶¶ 50–52); and certification of the
Dominion voting system on November 18, 2020 (Id. at ¶ 53).
- 17 -

2094 Case 2:20-cv-01771-PP Filed 12/09/20 Page 20 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 18 of 29

1

was not known until election night, when their experts noted a “blip” in their reporting data

2

that showed an increase in votes for Joe Biden around 8:00 p.m. Plaintiffs also argue that

3

A.R.S. §16-673 supports the timeliness of their Complaint because it requires an elector to

4

file a challenge to the election in state court within five days of certification of the election.

5

Plaintiffs’ Complaint includes a hodge-podge of alleged misconduct by Arizona

6

elections officials, occurring on various dates over the past weeks, months, and even years.

7

In addition to the objections regarding poll watchers’ inability to observe ballot counting

8

and handling, Plaintiffs also object to the manner and process by which Arizona election

9

officials matched signatures on absentee ballots (Doc. 1 ¶¶ 46–48); to the process and role

10

assigned to poll referees in settling unresolved disputes between adjudicators (Id. at ¶ 49);

11

to “irregularities” with the voting machines on Election Day and before (Id. at ¶¶ 50–52);

12

and to the certification of the Dominion voting system on November 18, 2020 (Id. at ¶ 53).

13

The affidavits or declarations upon which Plaintiffs rely clearly shows that the basis

14

for each of these claims was either known well before Election Day or soon thereafter, and

15

thus cannot be excused by a lack of knowledge nor an inability to substantiate their claims

16

through December 2. For example, Plaintiffs’ Complaint cites to documents showing that

17

Plaintiffs were in possession of information about suspected irregularities with the

18

Dominion voting machines as early as 2018. (Id. at ¶¶ 21, 69, 71–73) (referencing

19

“publicly available evidence (including judicial and administrative proceedings)” that

20

discuss concerns with security flaws in Dominion voting machines dating back to 2018);

21

(Doc. 1-10 at 19, Ex. 20, Declaration of Mark Paul Law dated November 24, 2020

22

(describing his concerns over Maricopa County Dominion voting machine security and

23

observations while poll watching on October 25, 2020 and November 1, 2020); id. at 30,

24

Ex. 22, Declaration of Gregory Wodynski dated November 23, 2020 (describing his

25

concerns over Maricopa County Dominion voting machine security and his perception that

26

“Bruce,” a Dominion employee, could manually manipulate voter data files while poll

27

watching on October 24, 2020 and November 1, 2020).

28

Plaintiffs also include documents showing that the facts underlying their allegations
- 18 -

2095 Case 2:20-cv-01771-PP Filed 12/09/20 Page 21 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 19 of 29

1

of ballot counting and verification misconduct occurred weeks before Election Day.

2

Canvassing in Arizona began in October, and the poll watcher declarations and affidavits

3

attached to the Complaint object to the signature verification and ballot process during this

4

time. (See Doc. 1-3 at 7, Ex. 5) (containing unsigned Declaration dated October 25, 2020

5

from poll watcher objecting to “NO EFFECTIVE oversight” in signature verification

6

rooms); id. at 9, Ex. 5A (document listing poll watcher objections made on 10/7/20,

7

10/23/20, 10/24/20, 10/29/20); (Doc. 1-10 at 25, Ex. 21) (containing a Declaration of poll

8

watcher Judith Burns dated November 16, 2020 and noting her objections in observing the

9

signature verification and ballot processing on October 17, 2020 and October 21, 2020).

10

In a statement from Ms. Linda Brickman, the First Vice-Chair of the Maricopa County

11

Republican Committee, she represents that she had ongoing concerns regarding the

12

signature verification for early and mail-in ballots during her time as an elections worker

13

“from 10/19/20 to 11/11/20” (Doc. 1-10 at 38, Ex. 23) and had objections to the Logic and

14

Accuracy Certification of the Dominion voting systems that occurred on November 18,

15

2020. (Id. at 35). Indeed, at least one Plaintiff has already raised some of these complaints

16

in state court.14 Ward, CV2020-015285 (Super. Ct. of Ariz. Dec. 4, 2020) (dismissing the

17

Petition with prejudice); (Doc. 58-1 at 14, Ex. B). Dr. Ward clearly knew the basis of her

18

claim before December 2, 2020 but offers no reasonable explanation for the delay in

19

bringing this suit in federal court. When contesting an election, any delay is prejudicial,

20

but waiting until a month after Election Day and two days after certification of the election

21

is inexcusable.

22

(“Petitioners failed to act with due diligence in presenting the instant claim” when they

23

waited until November 21 to sue to invalidate Pennsylvania’s election); Kistner v. Simon,

24

No. A20-1486, slip op. at 3–4 (Minn. Dec. 4, 2020); see also, e.g., Ariz. Libertarian Party

25
26
27
28

See Kelly v. Penn., 2020 WL 7018314, at *1 (Pa. Nov. 28, 2020)

14

As she does here, Ms. Ward’s state court action claimed that poll watchers were given
insufficient opportunity to observe the actions of election officials. Notably, the state court
judge found this claim barred by the doctrine of laches, as Ms. Ward had failed to assert it
during a time when it could have been corrected. (Doc. 1-10 at 19 (“The observation
procedures for the November general election were materially the same as for the August
primary election, and any objection to them should have been brought at a time when any
legal deficiencies could have been cured.”).
- 19 -

2096 Case 2:20-cv-01771-PP Filed 12/09/20 Page 22 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 20 of 29

1

v. Reagan, 189 F. Supp. 3d 920, 922–23 (D. Ariz. 2016).

2

The Court does not find that the Arizona state election challenge deadline excuses

3

delay on Plaintiffs’ part in these circumstances. See A.R.S. §16-673. As noted above, the

4

facts underlying the suspected irregularities complained of were either known to Plaintiffs

5

prior to Election Day or soon thereafter. Although Arizona electors may have a deadline

6

by which to file election contests in Arizona state court, Plaintiffs here opted to file their

7

federal constitutional challenges in federal court. The exhibits to the Complaint confirm

8

that the events complained of occurred on or before Election Day. Accordingly, the Court

9

rejects Plaintiffs’ self-serving statement that they did not know the basis for their claims

10

before December 2, 2020. The documents they submit with their Complaint plainly shows

11

the contrary is true, and the delay—which has resulted in a rush by this Court and

12

Defendants to resolve these issues before the Electoral College meeting deadline of

13

December 14, 2020—is unreasonable.

14

The second part of the laches test—prejudice—is also unquestionably met. First,

15

the prejudice to the Defendants and the nearly 3.4 million Arizonans who voted in the 2020

16

General Election would be extreme, and entirely unprecedented, if Plaintiff were allowed

17

to have their claims heard at this late date. SW Voter Registration Educ. Project v. Shelley,

18

344 F.3d 914, 919 (9th Cir. 2003) (“Interference with impending elections is extraordinary,

19

and interference with an election after voting has begun is unprecedented.”). As an Eastern

20

District of Michigan Court stated in a nearly identical case, “[the prejudice] is especially

21

so considering that Plaintiffs’ claims for relief are not merely last-minute—they are after

22

the fact. While Plaintiffs delayed, the ballots were cast; the votes were counted; and the

23

results were certified. The rationale for interposing the doctrine of laches is now at its

24

peak.” King, 2020 WL 7134198, at *7.

25

Second, the challenges that Plaintiffs assert quite simply could have been made

26

weeks ago, when the Court would have had more time to reflect and resolve the issues.

27

“Unreasonable delay can prejudice the administration of justice by compelling the court to

28

steamroll through . . . delicate legal issues in order to meet election deadlines.” Arizona
- 20 -

2097 Case 2:20-cv-01771-PP Filed 12/09/20 Page 23 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 21 of 29

1

Libertarian Party, 189 F. Supp. 3d at 923 (quotation marks and citations omitted).

2

Plaintiffs offer no reasonable explanation why their claims were brought in federal court

3

at this late date. Their delay and the resulting prejudice bars their claims by laches.

4

E.

5

Defendants also argue that this case is moot. (Docs. 38 at 5; 40 at 22). The Court

6

agrees. “Mootness is a jurisdictional issue, and ‘federal courts have no jurisdiction to hear

7

a case that is moot, that is, where no actual or live controversy exists.’” Foster v. Carson,

8

347 F.3d 742, 745 (9th Cir. 2003) (quoting Cook Inlet Treaty Tribes v. Shalala, 166 F.3d

9

986, 989 (9th Cir. 1999)). In addition, a case is moot when a party cannot obtain relief for

10

Mootness

its claim. Id.; see also Ruvalcaba v. City of L.A., 167 F.3d 514, 521 (9th Cir. 1999).

11

Plaintiffs request an injunction that (a) enjoins Governor Ducey from transmitting

12

the certified results, (b) orders Defendants to “de-certify” the election results, (c) nullifies

13

votes tabulated by uncertified machines, (d) declares that illegal ballot fraud occurred in

14

violation of the Electors and Elections Clauses and the Fourteenth Amendment’s Due

15

Process and Equal Protections Clauses, (e) mandates a manual recount or statistical

16

sampling of all mail-in and absentee ballots, and (f) allows Plaintiffs to seize and inspect

17

voting hardware and software as well as security camera recordings “of all rooms used in

18

Maricopa County” from November 3 to 4. (Doc. 1 at ¶ 145).

19

Obviously, the Court cannot enjoin the transmission of the certified results because

20

they have already been transmitted. (Doc. 40 at 4). Plaintiffs’ counsel orally argued that

21

Defendants had the power to de-certify the election under 3 U.S.C. § 6. Nothing in that

22

statute authorizes this Court to de-certify the results. The manner provided to contest

23

elections under Arizona law requires election contest claims to be brought, “in the superior

24

court of the county in which the person contesting resides or in the superior court of

25

Maricopa County.” A.R.S. § 16-672. Therefore, if de-certification were possible, it would

26

only be possible through an action brought in Arizona superior court. In other words, this

27

Court has no power to de-certify the results. But even assuming the Court were able to

28

grant the extraordinary relief requested, ordering Governor Ducey to de-certify the
- 21 -

2098 Case 2:20-cv-01771-PP Filed 12/09/20 Page 24 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 22 of 29

1

election, such relief would necessarily run afoul of 3 U.S.C. § 6 by ignoring Arizona law.

2

In this instance, the Court cannot allow Plaintiffs to circumvent both federal and Arizona

3

law.

4

Because this Court cannot de-certify the results, it would be meaningless to grant

5

Plaintiffs any of the remaining relief they seek. See Wood v. Raffensperger, 2020 WL

6

7094866, at *6 (11th Cir. Dec. 5, 2020) (“[I]t is not possible for us to delay certification

7

nor meaningful to order a new recount when the results are already final and certified.”);

8

King, 2020 WL 7134198, at *5 n.3 (“[T]he evidence Plaintiffs seek to gather by inspecting

9

voting machines and software and security camera footage only would be useful if an

10

avenue remained open for them to challenge the election results.”). Plaintiffs’ claims are

11

moot.

12

F.

Failure to State a Claim

13

“A motion to dismiss a complaint or claim ‘grounded in fraud’ under Rule 9(b)15

14

for failure to plead with particularity is the functional equivalent of a motion to dismiss

15

under Rule 12(b)(6) for failure to state a claim.” Vess v. Ciba-Geigy Corp. USA, 317 F.3d

16

1097, 1107 (9th Cir. 2003). In a Rule 12(b)(6) context, courts must consider all well-

17

pleaded factual allegations as true and interpret them in the light most favorable to the

18

plaintiff. Schlegal v. Wells Fargo Bank, NA, 720 F.3d 1204, 1207 (9th Cir. 2013).

19

Dismissal is proper when there is either (1) a lack of a cognizable legal theory or (2)

20

insufficient facts to support a cognizable legal claim. Conservation Force v. Salazar, 646

21

F.3d 1240, 1242 (9th Cir. 2011), cert. denied, Blasquez v. Salazar, 565 U.S. 1261 (2012).

22

When pleading allegations concerning fraudulent conduct, Rule 9(b) requires

23

something more than Rule 8: particularity. Ashcroft v. Iqbal, 556 U.S. 662, 686 (2009);

24
25
26
27
28

15

Although Plaintiffs strenuously argue that they can bring their Arizona election lawbased claims in federal court because of the presence of federal allegations, they also boldly
assert in their Reply that they need not follow the heightened pleading standard of Federal
Rule of Civil Procedure 9(b) in pleading their fraud claims with particularity, because the
federal rules are somehow abrogated by “controlling Arizona Supreme Court precedent.15”
(Doc. 44 at 23). Plaintiffs cannot have it both ways. Plaintiffs have not provided any
authority that a state court decision can alter the pleading requirements in federal court
established by United States Supreme Court precedent and the Federal Rules of Civil
Procedure.
- 22 -

2099 Case 2:20-cv-01771-PP Filed 12/09/20 Page 25 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 23 of 29

1

see also Fed. R. Civ. P. 9(b) (“In alleging fraud or mistake, a party must state with

2

particularity the circumstances constituting fraud or mistake.”).

3

requirement demands a higher degree of notice than that required for other claims. The

4

claim must identify who, what, where, when, and how.” U.S. ex rel. Costner v. United

5

States, 317 F.3d 883, 888 (8th Cir. 2003).

“This particularity

6

Moreover, “claims of fraud or mistake . . . must, in addition to pleading with

7

particularity, also plead plausible allegations. That is, the pleading must state enough facts

8

to raise a reasonable expectation that discovery will reveal evidence of the misconduct

9

alleged.” Cafasso, U.S. ex rel. v. Gen. Dynamics C4 Sys., Inc., 637 F.3d 1047, 1055 (9th

10

Cir. 2011) (internal citations omitted). Indeed, “Rule 9(b) serves not only to give notice to

11

defendants of the specific fraudulent conduct against which they must defend, but also ‘to

12

deter the filing of complaints as a pretext for the discovery of unknown wrongs, to protect

13

[defendants] from the harm that comes from being subject to fraud charges, and to prohibit

14

plaintiffs from unilaterally imposing upon the court, the parties and society enormous

15

social and economic costs absent some factual basis.’” Bly-Magee v. California, 236 F.3d

16

1014, 1018 (9th Cir. 2001) (citing In re Stac Elec. Sec. Litig., 89 F.3d 1399, 1405 (9th Cir.

17

1996)).

18

Establishing the plausibility of a complaint’s allegations is a two-step process that

19

is “context-specific” and “requires the reviewing court to draw on its judicial experience

20

and common sense.” Iqbal, 556 U.S. 679. First, a court must “identif[y] pleadings that,

21

because they are no more than conclusions, are not entitled to the assumption of truth.” Id.

22

Then, assuming the truth only of well-pleaded factual allegations, a court must “determine

23

whether they plausibly give rise to an entitlement to relief.” Id.; see also Eclectic Props.

24

E., LLC v. Marcus & Millichap Co., 751 F.3d 990, 996 (9th Cir. 2014) (identifying the

25

two-step process for evaluating pleadings).

26

allegations may be consistent with a plaintiff’s claim, a district court must assess whether

27

there are other “more likely explanations” for a defendant’s conduct such that a plaintiff’s

28

claims cannot cross the line “‘from conceivable to plausible.’” Iqbal, 556 U.S. at 680
- 23 -

Although a plaintiff’s specific factual

2100 Case 2:20-cv-01771-PP Filed 12/09/20 Page 26 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 24 of 29

1

(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). This standard represents

2

a balance between Rule 8’s roots in relatively liberal notice pleading and the need to

3

prevent “a plaintiff with a largely groundless claim” from “‘tak[ing] up the time of a

4

number of other people, with the right to do so representing an in terrorem increment of

5

settlement value.’” Twombly, 550 U.S. at 557–58 (quoting Dura Pharmaceuticals, Inc. v.

6

Broudo, 544 U.S. 336, 347 (2005)).

7

Advancing several different theories, Plaintiffs allege that Arizona’s Secretary of

8

State and Governor conspired with various domestic and international actors to manipulate

9

Arizona’s 2020 General Election results allowing Joseph Biden to defeat Donald Trump in

10

the presidential race. The allegations they put forth to support their claims of fraud fail in

11

their particularity and plausibility.

12

attachments, which are only impressive for their volume. The various affidavits and expert

13

reports are largely based on anonymous witnesses, hearsay, and irrelevant analysis of

14

unrelated elections. Because the Complaint is grounded in these fraud allegations, the

15

Complaint shall be dismissed. Vess, 317 F.3d at 1107 (“When an entire complaint, or an

16

entire claim within a complaint, is grounded in fraud and its allegations fail to satisfy the

17

heightened pleadings requirements of Rule 9(b), a district court may dismiss the complaint

18

or claim.”).

Plaintiffs append over three hundred pages of

19

Plaintiffs first “describe specific violations of Arizona law” to support their fraud

20

claims.16 In doing so, they attach declarations from poll watchers that observed election

21

officials during the November General Election. (Doc. 1 ¶¶ 46–53). As Intervenor-

22

Defendant Maricopa County points out, these are the only declarants offered by Plaintiffs

23

with first-hand observation of the election administration. (Doc. 36 at 4). But these four

24

declarants do not allege fraud at all. (See Doc. 1-10 at 18–24). Instead, they raise

25

objections to the manner and process by which Arizona election officials matched

26

signatures on absentee ballots (Doc. 1 ¶¶ 46–48); to the process and role assigned to poll

27

16

28

Plaintiffs’ often scattershot pleadings allege that “Defendants failed to administer the
November 3, 2020 election in compliance with the manner prescribed by the Georgia
legislature.” (Doc 2 at 6) (emphasis added). Plaintiffs also nonsensically include
references to Wisconsin state statutes. (Doc. 1 at 33).
- 24 -

2101 Case 2:20-cv-01771-PP Filed 12/09/20 Page 27 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 25 of 29

1

referees in settling unresolved disputes between adjudicators (Id. at ¶ 49); to “irregularities”

2

with the voting machines on Election Day and before (Id. at ¶¶ 50–52); and to the

3

certification of the Dominion voting system on November 18, 2020 (Id. at ¶ 53). These

4

objections to the manner in which Arizona officials administered the election cannot serve

5

to overturn the results of the 2020 presidential election in Arizona because they fail to

6

present evidence that supports the underlying fraud claim. At most, these are the type of

7

“garden variety election irregularities” federal courts are “not equipped nor empowered to

8

supervise . . . .” Griffin v. Burns, 570 F.2d 1065, 1076, 1077 (1st Cir. 1978) (“If every

9

election irregularity or contested vote involved a federal violation, the court would be thrust

10

into the details of virtually every election, tinkering with the state’s election machinery,

11

reviewing petitioners, registration cards, vote tallies, and certificates of election for all

12

manner of error and insufficiency under state and federal law.”).

13

Plaintiffs next argue that they have expert witnesses who can attest to widespread

14

voter fraud in Arizona.

As an initial matter, none of Plaintiffs’ witnesses identify

15

Defendants as committing the alleged fraud, or state what their participation in the alleged

16

fraudulent scheme was. Instead, they allege that, absentee ballots “could have been filled

17

out by anyone and then submitted in the name of another voter,” “could be filled in by third

18

parties to shift the election to Joe Biden,” or that ballots were destroyed or replaced “with

19

blank ballots filled out by election workers, Dominion or other third parties.” (Doc. 1 ¶¶

20

54–58) (emphasis added). These innuendoes fail to meet Rule 9(b) standards. But perhaps

21

more concerning to the Court is that the “expert reports” reach implausible conclusions,

22

often because they are derived from wholly unreliable sources.

23

Plaintiffs’ expert Mr. William Briggs (“Briggs”), for example, concludes that

24

“troublesome” errors by Arizona election officials “involving unreturned mail-in ballots []

25

are indicative of voter fraud” and that the election should consequently be overturned.

26

(Doc. 1 at ¶ 54). Briggs relies on data provided by an unknown person named “Matt

27

Braynard,” a person who may or may not have tweeted a “Residency Analysis of ABS/EV

28

Voters” on his Twitter account on November 20, 2020 (Doc. 1-2 at 14, Ex. 2); (Id. at 52,
- 25 -

2102 Case 2:20-cv-01771-PP Filed 12/09/20 Page 28 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 26 of 29

1

Ex. 3). Apart from a screenshot of Mr. Braynard’s tweets that day, Plaintiffs offer nothing

2

further about Mr. Braynard’s identity, qualifications, or methodologies used in conducting

3

his telephone “survey.” But according to the Briggs’ report, Mr. Braynard conducted his

4

survey of unknown size and to unknown persons in Georgia, Michigan, Wisconsin,

5

Arizona, and Pennsylvania regarding absentee ballots, and his “findings” were conveyed

6

to Mr. Briggs. (Id.) In concluding that there were “clearly a large number of troublesome

7

ballots in each state,” Mr. Briggs assumed Mr. Braynard’s “survery [sic] respondents

8

[were] representative and the data [was] accurate.” (Id.)

9

establishing that hundreds of thousands of Arizona votes were somehow cast in error is

10

itself troublesome. The sheer unreliability of the information underlying Mr. Briggs’

11

“analysis” of Mr. Braynard’s “data” cannot plausibly serve as a basis to overturn a

12

presidential election, much less support plausible fraud claims against these Defendants.

This cavalier approach to

13

The Complaint is equally void of plausible allegations that Dominion voting

14

machines were actually hacked or compromised in Arizona during the 2020 General

15

Election. Plaintiffs are clearly concerned about the vulnerabilities of voting machines used

16

in some counties across Arizona and in other states. They cite sources that attest to

17

knowledge of “well-known” vulnerabilities, have included letters from concerned citizens,

18

Arizona elected officials, and United States senators. Plaintiffs even attach an affidavit of

19

an anonymous witness with connections to the late Venezuelan dictator Hugo Chavez

20

claiming to be privy as to how officials in Venezuela rigged their elections with the help

21

of a voting systems company whose software “DNA” is now used in voting machines in

22

the United States. (Doc. 1-1, Ex. 1). These concerns and stated vulnerabilities, however,

23

do not sufficiently allege that any voting machine used in Arizona was in fact hacked or

24

compromised in the 2020 General Election. Rather, what is present is a lengthy collection

25

of phrases beginning with the words “could have, possibly, might,” and “may have.”

26

(Doc. 1 ¶¶ 8, 53, 55, 57, 60, 66, 77, 88, 91, 108, 109, 122). To lend support to this theory,

27

Plaintiffs offer expert Russell Ramsland, Jr., who asserts there was “an improbable, and

28

possibly impossible spike in processed votes” in Maricopa and Pima Counties at 8:46 p.m.
- 26 -

2103 Case 2:20-cv-01771-PP Filed 12/09/20 Page 29 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 27 of 29

1

on November 3, 2020. (Doc. 1 ¶ 60); (Doc. 1-9, Ex. 17) (emphasis added). He suggests

2

that this spike “could easily be explained” by presuming that Dominion “pre-load[ed]

3

batches of blank ballots in files such as Write-Ins or other adjudication-type files then

4

casting them almost all for Biden using the Override Procedure . . . .” (Doc. 1-9 at 9, Ex.

5

17). This scenario is conceivable. However, Defendant Hobbs points to a much more

6

likely plausible explanation: because Arizona begins processing early ballots before the

7

election, the spike represented a normal accounting of the early ballot totals from Maricopa

8

and Pima Counties, which were reported shortly after in-person voting closed. (Doc. 40 at

9

17–18). Thus, the Court finds that while this “spike” could be explained by an illicit

10

hacking of voting machinery in Arizona, the spike is “not only compatible with, but indeed

11

was more likely explained by, lawful, unchoreographed” reporting of early ballot

12

tabulation in those counties. See Iqbal, 556 U.S. at 680. Plaintiffs have not moved the

13

needle for their fraud theory from conceivable to plausible, which they must do to state a

14

claim under Federal pleading standards. Id.

15
16

Because Plaintiffs have failed to plead their fraud claims with particularity and
because the Complaint is grounded in these claims, it must be dismissed.17

17

G.

Motion for TRO and Preliminary Injunction

18

There are multiple independent grounds upon which to dismiss Plaintiffs’

19

Complaint. Accordingly, it is not necessary to reach the merits of Plaintiffs’ requests for a

20

temporary restraining order and preliminary injunction and the Court will therefore only

21

briefly addresses those Motions here.

22

“The standard for issuing a temporary restraining order is identical to that for issuing

23

a preliminary injunction.” Taylor-Failor v. Cty of Hawaii, 90 F. Supp. 3d 1095, 1098 (D.

24

Haw. 2015). Under normal circumstances, both are extraordinary and drastic remedies,

25
26
27
28

17

Throughout their pleadings, Plaintiffs allege that there were “spikes” of votes for Joe
Biden that occurred in Arizona, which also occurred in other states that certified the
election for Joe Biden, including Georgia, Wisconsin, Michigan, and Pennsylvania.
Regardless of whether these “spikes” shifting the vote majorities from President Trump to
Vice President Biden occurred in other states, Plaintiffs have presented nothing to support
the claim that these same “spikes” occurred in Arizona, where Biden never trailed Trump
in the vote tally.
- 27 -

2104 Case 2:20-cv-01771-PP Filed 12/09/20 Page 30 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 28 of 29

1

and “should not be granted unless the movant, by a clear showing, carries the burden of

2

persuasion.’” Lopez v. Brewer, 680 F.3d 1068, 1072 (9th Cir. 2012) (quoting Mazurek v.

3

Armstrong, 520 U.S. 968, 972 (1997) (per curiam)); see also Winter v. Natural Res. Def.

4

Council, Inc., 555 U.S. 7, 24 (2008) (“A preliminary injunction is an extraordinary remedy

5

never awarded as of right.”) (citation omitted). A plaintiff seeking a temporary restraining

6

order or preliminary injunction must show that (1) he or she is likely to succeed on the

7

merits, (2) is likely to suffer irreparable harm without an injunction, (3) the balance of

8

equities tips in his or her favor, and (4) an injunction is in the public interest. Winter, 555

9

U.S. at 20.

10

Plaintiffs simply cannot establish they have a likelihood of success on their claims.

11

Plaintiffs face serious jurisdictional impediments in bringing their claims to federal court

12

at the eleventh hour. These insurmountable legal hurdles are exacerbated by insufficiently

13

plead allegations of fraud, rendered implausible by the multiple inadmissible affidavits,

14

declarations, and expert reports upon which their Complaint relies.

15

Furthermore, granting Plaintiffs the injunctive relief they seek would greatly harm

16

the public interest. As stated by Defendant Hobbs, “the requested relief would cause

17

enormous harm to Arizonans, supplanting the will of nearly 3.4 million voters reflected in

18

the certified election results and potentially imperiling Arizona’s participation in the

19

Electoral College. It would be more difficult to envision a case in which the balance of

20

hardships would tip more strongly against a plaintiff.” (Doc. 40 at 24). The Court agrees.

21

The significant weight of these two Winters factors requires that the Court deny Plaintiffs’

22

requests for injunctive relief. 18

23

III.

Conclusion

24

Not only have Plaintiffs failed to provide the Court with factual support for their

25

extraordinary claims, but they have wholly failed to establish that they have standing for

26

the Court to consider them. Allegations that find favor in the public sphere of gossip and

27

innuendo cannot be a substitute for earnest pleadings and procedure in federal court. They

28

18

The Court will vacate the hearing on Plaintiffs’ TRO and Request for Preliminary
Injunction scheduled for December 10, 2020.
- 28 -

2105 Case 2:20-cv-01771-PP Filed 12/09/20 Page 31 of 32 Document 81

Case 2:20-cv-02321-DJH Document 84 Filed 12/09/20 Page 29 of 29

1

most certainly cannot be the basis for upending Arizona’s 2020 General Election. The

2

Court is left with no alternative but to dismiss this matter in its entirety.

3

Accordingly,

4

IT IS HEREBY ORDERED that Defendants’ Governor Doug Ducey, Secretary

5

of State Katie Hobbs, and Intervenor Defendants Maricopa County Board of Supervisors

6

and Adrian Fontes’ Motions to Dismiss the Complaint (Docs. 36, 38, and 40) are

7

GRANTED for the reasons stated herein.

8

IT IS FURTHER ORDERED that all remaining pending motions (Docs. 14, 62,

9

65 and 66) are denied as moot, and the hearing on Plaintiffs’ TRO and Preliminary

10
11
12
13

Injunction set for December 10, 2020 is vacated.
IT IS FINALLY ORDERED that this matter is dismissed, and the Clerk of Court
is kindly directed to terminate this action.
Dated this 9th day of December, 2020.

14
15
16
17

Honorable Diane J. Humetewa
United States District Judge

18
19
20
21
22
23
24
25
26
27
28
- 29 -

2106 Case 2:20-cv-01771-PP Filed 12/09/20 Page 32 of 32 Document 81

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN ,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION,
COMMISSIONER ANN S. JACOBS,
MARK L. THOMSEN, COMMISSIONER MARGE BOSTELMANN,
JULIE M. BLANCEY, COMMISSIONER DEAN KNUDSON,
ROBERT F. SPINDELL, JR., and TONY EVERS ,
Defendants.
ORDER DENYING PLAINTIFF’S MOTION TO FILE UNREDACTED COPIES
OF EXHIBITS 1 AND 12 TO PLAINTIFF’S AMENDED COMPLAINT UNDER
SEAL AND EXHIBITS 4, 13, AND 19 UNDER PROTECTIVE ORDER
(DKT. NO. 75)

After the plaintiff filed his reply brief in support of his motion for
injunctive relief, he filed a separate motion to file unredacted copies of Exhibits
1 and 12 under seal and to file Exhibits 4, 13 and 19 as restricted to all
attorneys of record. Dkt. No. 75. The plaintiff previously had filed redacted
versions of these documents with the amended complaint, concealing the
affiants’ identities and some additional material. Dkt. Nos. 9-1, 9-4, 9-12, 9-13,
9-19.
The general local rule governing confidential matters requires that a
movant certify in the motion that the parties have conferred in a good faith
attempt to avoid the motion or to limit the scope of the documents or materials

1

2107

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 5 Document 82

subject to sealing under the motion. Gen. L.R. 79(d)(4). The plaintiff filed an
email from Attorney Jeffrey Mandell, who represents defendant Governor Tony
Evers, objecting to the use of declarations, affidavits or reports or otherwise
pressing forward with evidentiary issues. Dkt. No. 75-1 at 1. The plaintiff has
not indicated whether he attempted to confer with counsel for the Wisconsin
Election Commission and its members.
General Local Rule 79(d)(2) requires the motion to describe the general
nature of the information withheld from the public record. Any motion to
restrict access or seal must be supported by sufficient facts demonstrating
good cause for withholding the document or material from the public record.
Gen. L. R. 79(d)(3). “The Seventh Circuit has emphasized that ‘the public at
large pays for the courts and therefore has an interest in what goes on at all
stages of a judicial proceeding.’ Citizens First Nat'l Bank v. Cincinnati Ins. Co.,
178 F.3d 943, 945 (7th Cir. 1999).” Roumann Consulting Inc. v. T.V. John &
Son, Inc., No. 17-C-1407, 2019 WL 3501513, at *8 (E.D. Wis. Aug. 1, 2019). A
party may override this interest only if its privacy interest surmounts the
public's interest; “that is, only if there is good cause for sealing a part or the
whole of the record in that case.” Id.
The plaintiff maintains that good cause exists to restrict the affiants’
identities. Dkt. No. 76 at 2. He asserts that sealing to protect identities is
routine. Id. at 3 (citing Hicklin Eng’g, L.C. v. Bartell, 439 F.3d 346, 348-49 (7th
Cir. 2006), abrogated on other grounds by RTP LLC v. ORIX Real Estate
Capital, 827 F.3d 689, 691-92 (7th Cir. 2016); Roe v. City of Milwaukee, 37 F.
2

2108

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 5 Document 82

Supp. 2d 1127 (E.D. Wis. 1999)). It is unclear what portion of Hicklin plaintiff
relies on for this understanding. Hicklin addresses whether a judicial decision
may be sealed. Hicklin, 439 F.3d at 348-49.
The Seventh Circuit imposes a high burden on a party seeking to seal
court documents, and it is anything but “routine.” See, e.g., Bond v. Utreras,
585 F.3d 1061, 1075 (7th Cir. 2009) (“documents . . . ‘used in [a court]
proceeding’ . . . are therefore presumptively open to public inspection unless
they meet the definition of trade secret or other categories of bona fide longterm confidentiality.”) (citing Fed. R. Civ. P. 5(d)). “It is beyond dispute that
most documents filed in court are presumptively open to the public.” Id. at
1073. In fact, a judge in this district has stated that “[t]he party seeking to seal
items has the burden of showing cause and must ‘analyze in detail document
by document, the propriety of secrecy, providing reasons and legal citations.’”
E.E.O.C. v. Abbott Labs., No. 10-C-0833, 2012 WL 2884882, at *1 (E.D. Wis.
July 12, 2012) (quoting Baxter Int’l, Inc. v. Abbott Labs., 297 F.3d 544, 548
(7th Cir. 2002)).
The motion does not explain why the plaintiff believes the court needs
the unredacted material this stage of the litigation. The plaintiff previously took
the position that “the plaintiff’s amended complaint and motion present
material dispositive issues that are questions of law that may be resolved
without factual investigation or determination.” Dkt. No. 10 at ¶6. At the
telephonic hearing on December 8, the court told the parties that it needed to
decide threshold issues of justiciability before it could consider any evidence.
3

2109

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 5 Document 82

Dkt. Nos. 70, 71. The plaintiff asked the court to rule on those justiciability
issues on December 9, 2020; the court is working hard to do that.
As for the plaintiff’s concern that the court protect the identities of the
declarants, the plaintiff says that the affiants (declarants) are “in reasonable
fear of harassment and threats to their physical safety and their livelihoods in
retaliation for their coming forward with testimony.” Dkt. No. 76 at 4. Exhibit 1
was prepared by a Venezuela whistleblower and Exhibit 2 was prepared by an
individual known as “Spider” who describes him- or herself as an electronic
intelligence analyst. Id. at 5. According to plaintiff, both individuals showed
“great courage in coming forward at a critical moment to deliver the truth to
the court about matters of great importance.” Dkt. No. 76 at 6. He says that
the authors of exhibits 4, 13 and 19 fear attacks against their reputation,
professional career and personal safety. Id. at 7.
The court will not require the plaintiff to disclose the identities of the
individuals at this time. Their identities are not relevant to the justiciability
issues the court is working to resolve. If and when the time comes to discuss
presentation of evidence, the plaintiff may renew his motion.
The court DENIES WITHOUT PREJUDICE Plaintiff’s Motion to File
Unredacted Copies of (1) Exhibits 1 and 12 to Plaintiff’s Amended Complaint

4

2110

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 5 Document 82

Under Seal and (2) Exhibits 4, 3 and 19 Under Protective Order. Dkt. No. 75.
Dated in Milwaukee, Wisconsin this 9th day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

5

2111

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 5 Document 82

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION,
COMMISSIONER ANN S. JACOBS,
MARK L. THOMSEN, JULIE M. GLANCEY,
COMMISSIONER MARGE BOSTELMANN,
COMMISSIONER DEAN KNUDSON,
ROBERT F. SPINDELL, JR. and TONY EVERS,
Defendants.

ORDER GRANTING DEFENDANTS’ MOTIONS TO DISMISS
(DKT. NOS. 51, 53), DENYING AS MOOT PLAINTIFF’S AMENDED MOTION
FOR INJUNCTIVE RELIEF (DKT. NO. 6) AND DISMISSING CASE

At 8:24 a.m. on Tuesday, December 1, 2020—twenty-eight days after the
November 3, 2020 general Presidential election, thirteen days after President
Donald J. Trump petitioned for a recount in Milwaukee and Dane Counties and
one day after the Wisconsin Elections Commission and the Governor certified
that Joseph R. Biden and Kamala D. Harris had received the highest number of
votes following that recount—two plaintiffs filed this lawsuit in federal court for
the Eastern District of Wisconsin. Although state law governs the election
process, the plaintiffs brought the suit in a federal court, asking that federal
court to order state officials to decertify the election results that state officials
had certified the day before, order the Governor not to transmit to the Electoral

1

2112

Case 2:20-cv-01771-PP Filed 12/09/20 Page 1 of 45 Document 83

College the certified results he’d transmitted the day before and order the
Governor to instead transmit election results that declared Donald Trump to be
“the winner of this election.”
The election that preceded this lawsuit was emotional and often divisive.
The pleadings that have been filed over the past week are passionate and
urgent. People have strong, deep feelings about the right to vote, the freedom
and opportunity to vote and the value of their vote. They should. But the legal
question at the heart of this case is simple. Federal courts have limited
jurisdiction. Does a federal court have the jurisdiction and authority to grant
the relief this lawsuit seeks? The answer is no.
Federal judges do not appoint the president in this country. One wonders
why the plaintiffs came to federal court and asked a federal judge to do so.
After a week of sometimes odd and often harried litigation, the court is no
closer to answering the “why.” But this federal court has no authority or
jurisdiction to grant the relief the remaining plaintiff seeks. The court will
dismiss the case.
I.

Background
According to defendant the Wisconsin Elections Commission’s November

18, 2020 canvass results, 3,297,352 Wisconsin residents voted in the
November 3, 2020 general election for President. https://elections.wi.gov/
sites/elections.wi.gov/files/Statewide%20Results%20All%20Offices%20%28pre
-Presidential%20recount%29.pdf. Of those, 49.45%—1,630,673—voted for
Biden for President and Harris for Vice-President. Id. Biden and Harris received
2

2113

Case 2:20-cv-01771-PP Filed 12/09/20 Page 2 of 45 Document 83

approximately 20,600 more votes than Donald J. Trump for President and
Michael R. Pence for Vice-President. Id.
Under Wis. Stat. §9.01(1)(a)(1), any candidate in an election where more
than 4,000 votes were cast for the office the candidate seeks and who trails the
leading candidate by no more than 1 percent of the total votes cast for that
office may petition for a recount. On November 18, 2020, Donald J. Trump filed
a recount petition seeking a recount of “all ballots in all wards in every City,
Village, Town and other voting unit in Dane and Milwaukee Counties.”
https://elections.wi.gov/sites/elections.wi.gov/files/2020-11/WEC%20%20Final%20Recount%20Order_0.pdf. The Wisconsin Elections Commission
granted that petition and ordered a recount “using the ballot count method
selected per Wis. Stat. § 5.90(1) unless otherwise ordered by a court per Wis.
Stat. § 5.90(2).” Id. The WEC ordered the recount to be completed by 12:00
p.m. on December 1, 2020. Id.
The partial recount was completed on November 29, 2020.
https://elections.wi.gov/elections-voting/recount. On November 30, 2020, the
chair of the Wisconsin Elections Commission signed the statement of canvass
certifying that Joseph R. Biden and Kamala D. Harris received the greatest
number of votes and certified their electors. https://elections.wi.gov/sites/
elections.wi.gov/files/2020-11/Jacobs%20-%20Signed%20Canvass%20for%20
President%20-%20Vice%20President.pdf. The same day—November 30, 2020—
Wisconsin Governor Tony Evers announced that he had signed the Certificate
of Ascertainment for the electors for Biden and Harris.
3

2114

Case 2:20-cv-01771-PP Filed 12/09/20 Page 3 of 45 Document 83

https://content.govdelivery.com/accounts/WIGOV/bulletins/2aef6ff. The web
site for the National Archives contains the Certificate of Ascertainment signed
by Evers on November 30, 2020, certifying that out of 3,298,041 votes cast,
Biden and Harris and their electors received 1,630,866 votes, while Trump and
Pence and their electors received 1,610,184 votes. https://www.archives.gov/
files/electoral-college/2020/ascertainment-wisconsin.pdf.
On December 1, 2020, Donald J. Trump filed a petition for an original
action in the Wisconsin Supreme Court. Trump v. Evers, Case No.
2020AP001971-OA (available at https://wscca.wicourts.gov). On December 3,
2020, the court denied leave to commence an original petition because under
Wis. Stat. §9.01(6), appeals from the board of canvassers or the Wisconsin
Elections Commission must be filed in circuit court. Dkt. No. 59-7. The same
day—December 3, 2020—Donald J. Trump filed lawsuits in Milwaukee and
Dane Counties. Trump v. Biden, Case No. 2020CV007092 (Milwaukee County
Circuit Court; Trump v. Biden, Case No. 2020CV002514 (Dane County Circuit
Court) (both available at https://wcca.wicourts.gov). Those cases have been
consolidated and are scheduled for hearing on December 10, 2020 at 1:30 (or
for December 11, 2020 at 9:00 a.m. if the parties are litigating in another
court).
Meanwhile, on December 2, 2020, Donald J. Trump filed suit in federal
court for the Eastern District of Wisconsin, suing the defendants in this case
and others. Trump v. Wisconsin Elections Commission, et al., Case No. 20-cv-

4

2115

Case 2:20-cv-01771-PP Filed 12/09/20 Page 4 of 45 Document 83

1785-BHL (E.D. Wis.). There is an evidentiary hearing scheduled for December
10, 2020 at 9:00 a.m. by videoconference. Id. at Dkt. No. 45.
II.

Procedural History of the Case
On December 1, 2020—the day after Governor Evers signed the

Certificate of Ascertainment—William Feehan and Derrick Van Orden filed a
complaint in the federal court for the Eastern District of Wisconsin. Dkt. No. 1.
Feehan identified himself as a resident of La Crosse, Wisconsin, a registered
voter and “a nominee of the Republican Party to be a Presidential Elector on
behalf of the State of Wisconsin.” Id. at ¶23. Van Orden was identified as a
resident of Hager City, Wisconsin and the 2020 Republican nominee for
Wisconsin’s Third Congressional District Seat for the U.S. House of
Representatives. Id. at ¶26. The complaint alleged that “Mr. Van Orden ‘lost’ by
approximately 10,000 votes to the Democrat incumbent,” and stated that
“[b]ecause of the illegal voting irregularities as will be shown below, Mr. Van
Orden seeks to have a new election ordered by this court in the Third District,
with that election being conducted under strict adherence with the Wisconsin
Election Code.” Id. at ¶27.
The complaint alleged “massive election fraud, multiple violations of the
Wisconsin Election Code, see e.g., Wis. Stat. §§5.03, et seq., in addition to the
Election and Electors Clauses and Equal Protection Clause of the U.S.
Constitution” based on “dozens of eyewitnesses and the statistical anomalies
and mathematical impossibilities detailed in the affidavits of expert witnesses.”
Dkt. No. 1 at ¶1. The plaintiffs alleged four causes of action: (1) violation of the
5

2116

Case 2:20-cv-01771-PP Filed 12/09/20 Page 5 of 45 Document 83

Elections and Electors Clauses and 42 U.S.C. §1983; (2) violation of the Equal
Protection Clause of the Fourteenth Amendment, 42 U.S.C. §1983 and the
“invalid enactment of regulations & disparate treatment of absentee vs. mail-in
ballots”; (3) denial of the Fourteenth Amendment due process right to vote and
42 U.S.C. §1983; and (4) “wide-spread ballot fraud.” Id. at ¶¶106-138.

The

plaintiffs asked for the following emergency relief:
1.
An order directing Governor Evers and the Wisconsin
Elections Commission to de-certify the election results:
2.
An order enjoining Governor Evers from transmitting the
currently certified election results [sic] the Electoral College;
3.
An order requiring Governor Evers to transmit certified
election results that state that President Donald Trump is the
winner of the election;
4.
An immediate emergency order to seize and impound all
servers, software, voting machines, tabulators, printers, portable
media, logs, ballot applications, ballot return envelopes, ballot
images, paper ballots, and all “election materials” referenced in
Wisconsin Statutes §9.01(1)(b)11 related to the November 3, 2020
Wisconsin election for forensic audit and inspection by the Plaintiffs;
5.
An order that no votes received or tabulated by machines that
were not certified as required by federal and state law be counted;
6.
A declaratory judgment declaring that Wisconsin’s failed
system of signature verification violates the Electors and Elections
Clause by working a de facto abolition of the signature verification
requirement;
7.
A declaratory judgment declaring that currently certified
election results violate the Due Process Clause, U.S. Const. Amend.
XIV;
8.
A declaratory judgment declaring that mail-in and absentee
ballot fraud must be remedied with a Full Manual Recount or
statistically valid sampling that properly verifies the signatures on
absentee ballot envelopes and that invalidates the certified results if
6

2117

Case 2:20-cv-01771-PP Filed 12/09/20 Page 6 of 45 Document 83

the recount or sampling analysis shows a sufficient number of
ineligible absentee ballots were counted;
9.
A declaratory judgment declaring absentee ballot fraud
occurred in violation of Constitutional rights, Election laws and
under state law;
10. A permanent injunction prohibiting the Governor and
Secretary of State from transmitting the currently certified results
to the Electoral College based on the overwhelming evidence of
election tampering;
11. Immediate production of 48 hours of security camera
recording of all rooms used in the voting process at the TCF Center1
for November 3, 2020 and November 4, 2020;
12. Plaintiffs further request the Court grant such relief as is just
and proper including but not limited to, the costs of this action and
their reasonable attorney fees and expenses pursuant to 42 U.S.C.
§1988.
Id. at 50.
With the complaint, the plaintiffs filed a motion for declaratory,
emergency, and permanent injunctive relief, dkt. no. 2, and memorandum in
support of that motion, dkt. no. 3. The motion stated that the specific relief the
plaintiff requested was set out in an attached order, dkt. no. 2 at 1, but there
was no order attached. The memorandum asked the court to grant the motion
and enter the proposed order, dkt. no. 3 at 10; again, no proposed order was
provided.
Later that day, the plaintiffs filed a corrected motion for declaratory,
emergency, and permanent injunctive relief. Dkt. No. 6. The plaintiff did not file
a memorandum in support of this motion but did file a proposed order. Dkt.
The plaintiff may be referring to the TCF convention center in Detroit,
Michigan; the court is unaware of a “TCF Center” in Wisconsin.
1

7

2118

Case 2:20-cv-01771-PP Filed 12/09/20 Page 7 of 45 Document 83

No. 1. The relief described in the proposed order was almost identical to the
relief requested in the complaint, with a notable exception. Instead of the
request for an order requiring production of forty-eight hours of security
camera footage from the TCF Center, the plaintiffs asked for an order
prohibiting “any wiping or alteration of data or other records or materials” from
voting machines, tabulations machines, servers, software and printers, and
any alteration or destruction of ballot applications, ballot return envelopes,
ballot images, paper ballots, registration lists, poll lists or other election
materials, “across the state of Wisconsin.” Dkt. No. 6-1 at 7-8.
Two days later, plaintiff Freehan filed an amended complaint removing
Derrick Van Orden as a plaintiff. Dkt. No. 9. It differed from the original
complaint only in the removal of Van Orden as a plaintiff.
Along with the amended complaint, the plaintiff filed a motion for
temporary restraining order and preliminary injunction “to be considered in an
expedited manner.” Dkt. No. 10. The plaintiff did not file a memorandum in
support of the motion; his main purpose in filing the amended motion appears
to have been to ask the court to rule on the motion quickly. The plaintiff
attached a proposed briefing schedule, suggesting that the court should require
the defendants to respond by 8:00 p.m. on Friday, December 4, 2020 and
require him to file his reply by 8:00 p.m. on Saturday, December 5, 2020; he
proposed to submit the matter on briefs without argument. Dkt. No. 10-1. The
defendants objected to this severely truncated schedule. Dkt. Nos. 25

8

2119

Case 2:20-cv-01771-PP Filed 12/09/20 Page 8 of 45 Document 83

(defendant Evers), 26 (defendants Wisconsin Election Commission and its
members).
Construing the amended motion as a Civil L.R. 7(h) expedited, nondispositive motion for an expedited briefing schedule, the court granted the
request on December 4, 2020, setting a schedule that, while not as expedited
as the plaintiff requested, gave the parties a short leash. Dkt. No. 29.
Wisconsin voter James Gesbeck filed a motion to intervene, dkt. no. 14,
and later an expedited motion to intervene, dkt. no. 33. The Democratic
National Committee (DNC) also sought to intervene. Dkt. No. 22. The court
denied both requests, dkt. nos. 41 (DNC), 74 (Gesbeck), but allowed both to file
amicus curiae briefs by the December 7, 2020 deadline it had set for the
defendants to oppose the plaintiff’s motion for injunctive relief, dkt. nos. 37
(Gesbeck), 41 (DNC).
Recall that the plaintiff had not filed a memorandum in support of the
December 1, 2020 corrected motion for injunctive relief or in support of the
December 3, 2020 amended motion. On Sunday, December 6, 2020, the
plaintiff filed an amended memorandum in support of the motion. Dkt. No. 42.
In the first paragraph, the plaintiff indicated that he filed the amended
memorandum to “avoid possible confusion from removal of Mr. Van Orden is
[sic] plaintiff.” Id. at 1. He said that the memorandum was identical to the
original memorandum “except for amending references to plaintiffs to refer to
Mr. Meehan [sic] only and correcting several inadvertent references to the State
of Georgia.” Id.
9

2120

Case 2:20-cv-01771-PP Filed 12/09/20 Page 9 of 45 Document 83

On Sunday, December 6, the plaintiff also filed a motion asking the court
to schedule an evidentiary hearing “on the merits” for Wednesday, December 9,
2020 at 9:00 a.m. Dkt. No. 44. Although the plaintiff had not asked for a
hearing in any prior motion, and had represented in the amended motion that
he was submitting the matter on the briefs without argument, the plaintiff
explained that he had changed his position based on the court’s December 4,
2020 order. Id. at ¶4. The court denied the motion in a telephonic hearing on
December 8, 2020, explaining that before it could reach the merits of the
motion for injunctive relief, it must resolve issues regarding justiciability. Dkt.
Nos. 70, 71.
In opposing the plaintiff’s amended motion for injunctive relief,
defendants Wisconsin Election Commission and its members argued that the
case has jurisdictional and procedural defects that require dismissal. Dkt. No.
52 at 5. They asserted that the plaintiff lacks Article III standing, id. at 6, that
the doctrine of laches bars consideration of his claims, id. at 8 and that the
Eleventh Amendment shields them from the relief he seeks, id. at 10. They
asserted that the complaint fails to state a claim for relief under the Election or
Electors Clauses, id. at 11, or under the Equal Protection or Due Process
Clauses, id. at 13, and they contended that the plaintiff’s purported evidence
fails to meet basic evidentiary standards, id. at 20.
In his brief opposing injunctive relief, defendant Governor Evers argued
that there is no evidence of fraud in Wisconsin’s election results, dkt. no. 55 at
10, that the plaintiff’s witnesses and experts lack qualifications and are
10

2121 Case 2:20-cv-01771-PP Filed 12/09/20 Page 10 of 45 Document 83

unreliable, id. at 12, and that the plaintiff has failed to state valid claims, id. at
22. Evers also argued that an adequate remedy at law exists because the
recount procedures under Wis. Stat. §9.01 unambiguously constitute the
“exclusive remedy” for challenging election results. Id. at 55. With respect to
the balancing of harms, Evers argued that the requested relief would prejudice
the defendants and “retroactively deprive millions of Wisconsin voters of their
constitutional right to vote in the 2020 presidential election.” Id. at 32.
James Gesbeck, filing as friend of the court, opposed the motion for
injunctive relief on the grounds that the plaintiff has not established subject
matter jurisdiction and that the court should defer to the Wisconsin courts and
Wisconsin’s procedural mechanism for resolving disputed elections. Dkt. No.
47 at 11, 12. Gesbeck applied the balancing analysis for injunctive relief,
asserting that relief in this court would moot the Wis. Stat. §9.01 challenge
pending in the Wisconsin courts. Id. at 17. He argued that this, in turn, would
put the “insurmountable weight of the Federal Government on the election
result in Wisconsin and would be unbalancing the scale created by the system
of checks and balances that have been maintained since the Constitution was
adopted.” Id. at 17.
Amicus DNC opposed the motion on many of the same grounds as the
other defendants. Dkt. No. 57. The DNC argued that the plaintiff lacks
standing, that the doctrine of laches bars the plaintiff’s claims, that the
defendants are immune from suit under the Eleventh Amendment, that
principles of federalism and comity require abstention, and that the plaintiff
11

2122 Case 2:20-cv-01771-PP Filed 12/09/20 Page 11 of 45 Document 83

fails to state a claim upon which relief can be granted. Dkt. No. 57. It asserted
that the plaintiff cannot establish irreparable harm and has an adequate
remedy of law. Id. at 36.
The defendants have filed motions to dismiss the case. The WEC and its
members seek dismissal for failure to state a claim under Federal Rule of Civil
Procedure 12(b)(6). Dkt. No. 53. Defendant Evers seeks dismissal for lack of
subject matter jurisdiction under Fed. R. Civ. P. 12(b)(1), failure to plead fraud
with particularity under Fed. R. Civ. P. 9(b) and failure to state a claim under
Fed. R. Civ. P. 12(b)(6).
The Wisconsin State Conference of the NAACP and three of its members
(Dorothy Harrell, Wendell J. Harris, Jr. and Earnestine Moss) sought leave to
file an amicus brief on the question of whether the court should dismiss the
case. Dkt. No. 56. The court granted that motion. Dkt. No. 69.
III.

Procedural Posture
From the outset, the plaintiff has sought to have the claims in the

complaint resolved through a motion for injunctive relief under Fed. R. Civ. P.
65. The relief he requests in the second iteration of his motion for injunctive
relief is the same relief he requests in the lawsuit itself. As defendant Evers
points out in his motion to dismiss, the plaintiff’s December 6, 2020 motion for
an evidentiary hearing (which the court has denied) “makes clear that what
[the plaintiff] seeks—without any discovery or basic adversarial development of
evidence—is a trial and final adjudication on the merits.” Dkt. No. 51 at 2.

12

2123 Case 2:20-cv-01771-PP Filed 12/09/20 Page 12 of 45 Document 83

Evers points to Fed. R. Civ. P. 12(i), which states that “[i]f a party so
moves, any defense listed in Rule 12(b)(1)-(7)—whether made in a pleading or
by motion—and a motion under Rule 12(c) must be heard and decided before
trial unless the court orders a deferral until trial.” Because Evers has raised
defenses under Rule 12(b)(1) and (b)(6), and because in asking for a hearing the
plaintiff sought what would have been a trial on the merits of the causes of
action raised in the complaint, the court must resolve the defenses before
moving to the merits.
As the court stated in the hearing on December 8, that requirement is
more than a procedural nicety. The defendants and the amici have raised
questions about this federal court’s authority to decide the claims alleged in
the amended complaint. If this court does not have jurisdiction to hear and
decide those claims, any decision it might make regarding the merits of the
claims would be invalid. For that reason, the court considers the motions to
dismiss before considering the plaintiff’s request for injunctive relief.
IV.

The Motions to Dismiss
A.

Legal Standards
1.

Rule 12(b)(1)—Lack of Subject Matter Jurisdiction

In evaluating a motion to dismiss for lack of subject matter jurisdiction
under Fed. R. Civ. P. 12(b)(1), “the court must first determine whether a factual
or facial challenge has been raised.” Silha v. ACT, Inc., 807 F.3d 169, 173 (7th
Cir. 2015) (citing Apex Dig., Inc. v. Sears, Roebuck & Co., 572 F.3d 440, 443
(7th Cir. 2009). A factual challenge alleges that even if the pleadings are
13

2124 Case 2:20-cv-01771-PP Filed 12/09/20 Page 13 of 45 Document 83

sufficient, no subject matter jurisdiction exists. A facial challenge alleges that
the complaint is deficient—that the plaintiff has not sufficiently alleged subject
matter jurisdiction. Id. The difference matters—a court reviewing a factual
challenge “may look beyond the pleadings and view any evidence submitted to
determine if subject matter exists,” while a court reviewing a facial challenge
“must accept all well-pleaded factual allegations as true and draw all
reasonable inferences in favor of the plaintiff.” Id.
2.

Rule 12(b)(6)—Failure to State a Claim

A motion to dismiss for failure to state a claim under Rule 12(b)(6)
challenges the legal sufficiency of the complaint. A complaint must include “a
short and plain statement of the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2). The complaint must contain enough facts,
accepted as true, to “state a claim for relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows a court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Id. (citing
Twombly, 550 U.S. at 556). “[T]he plausibility determination is a contextspecific task that requires the reviewing court to draw on its judicial experience
and common sense.” W. Bend Mut. Ins. Co. v. Schumacher, 844 F.3d 670, 676
(7th Cir. 2016).

14

2125 Case 2:20-cv-01771-PP Filed 12/09/20 Page 14 of 45 Document 83

3.

42 U.S.C. §1983

To state a claim for a civil rights violation under 42 U.S.C. §1983, a
plaintiff must allege that someone deprived him of a right secured by the
Constitution or the laws of the United States and that whoever deprived him of
that right was acting under the color of state law. D.S. v. E. Porter Cty. Sch.
Corp., 799 F.3d 793, 798 (7th Cir. 2015) (citing Buchanan–Moore v. Cty. of
Milwaukee, 570 F.3d 824, 827 (7th Cir. 2009)).
B.

Subject Matter Jurisdiction

“Federal courts are courts of limited jurisdiction.” Kokkonen v. Guardian
Life Ins. Co. of America, 511 U.S. 375, 377 (1994). Subject matter jurisdiction
has to do with “the courts’ statutory or constitutional power to adjudicate the
case.” Steel Co. v. Citizens for a Better Environment, 523 U.S. 83, 89 (1998)
(emphasis in the original). “Article III, §2, of the Constitution extends the
‘judicial Power’ of the United States only to ‘Cases’ and ‘Controversies.’” Id. at
102. The defendants raise a factual challenge to the court’s subject matter
jurisdiction, arguing that regardless of the pleadings, subject matter
jurisdiction does not exist. The court may look outside the four corners of the
complaint in considering that challenge.
1.

Standing

Article III standing is an “essential component of Article III's case-orcontroversy requirement,” and therefore a “threshold jurisdictional question.”
Apex Dig., Inc., 572 F.3d at 443 (citing Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992)). “[N]o principle is more fundamental to the judiciary’s proper
15

2126 Case 2:20-cv-01771-PP Filed 12/09/20 Page 15 of 45 Document 83

role in our system of government than the constitutional limitation of federalcourt jurisdiction to actual cases or controversies.” Raines v. Byrd, 521 U.S.
811, 818 (1997). “Standing to sue is part of the common understanding of what
it takes to make a justiciable case.” Id. “Standing is an element of subjectmatter jurisdiction in a federal civil action . . . .” Moore v. Wells Fargo Bank,
N.A., 908 F.3d 1050, 1057 (7th Cir. 2018).
The “irreducible constitutional minimum of standing contains three
requirements. Lujan v. Defenders of Wildlife, [504 U.S. 555], at 560
[1992)]. First and foremost, there must be (and ultimately proved)
an “injury in fact”—a harm suffered by the plaintiff that is “concrete”
and “actual or imminent, not ‘conjectural’ or ‘hypothetical.’”
Whitmore v. Arkansas, [495 U.S. 149], at 149 [1990] (quoting Los
Angeles v. Lyons, 461 U.S. 95, 101-102 . . . (1983)). Second, there
must be causation—a fairly traceable connection between the
plaintiff’s injury and the complained-of conduct of the defendant.
Simon v. Eastern Ky. Welfare Rights Organization, 426 U.S. 26, 4142 . . . (1976). And third, there must be redressability—a likelihood
that the requested relief will redress the alleged injury. Id., at 45-46
. . .; see also Warth v. Seldin, 422 U.S. 490, 505 . . . (1975). This
triad of injury in fact, causation, and redressability constitutes the
core of Article III’s case-or-controversy requirement, and the party
invoking federal jurisdiction bears the burden of establishing its
existence. See FW/PBS, Inc. v. Dallas, 493 U.S. 215, 231 . . . (1990).
Steel Co., 523 U.S. at 102-104.
Regarding the “injury in fact” leg of the triad, the injury must be
“particularized,” such that it “affect[s] the plaintiff in a personal and individual
way.” Spokeo, Inc. v. Robins, ___ U.S. ___, 136 S. Ct. 1540, 1548 (2016)
(citations omitted). The injury also must be “concrete”—it must be “real,” not
“abstract.” Id. A plaintiff cannot show a particularized and concrete injury by
showing “that he has merely a general interest common to all members of the
public.” Ex parte Levitt, 302 U.S. 633, 634 (1937). A plaintiff may not use a
16

2127 Case 2:20-cv-01771-PP Filed 12/09/20 Page 16 of 45 Document 83

“federal court as a forum in which to air his generalized grievances about the
conduct of government . . . .” United States v. Richardson, 418 U.S. 166, 174
(1974) (quoting Flast v. Cohen, 392 U.S. 83, 106 (1942)).
As for the redressability leg of the triad, “[r]elief that does not remedy the
injury suffered cannot bootstrap a plaintiff into federal court; that is the very
essence of the redressability requirement.” Steel Co., 523 U.S. at 107. The
plaintiff must show that it is “likely,” not merely “speculative,” that the injury
the plaintiff alleges will be “redressed by a favorable decision.” Lujan, 504 U.S.
at 561 (quoting Simon, 426 U.S. at 38).
In addition to the Article III case-or-controversy requirement, there is a
prudential limitation in Fed. R. Civ. P. 17(a), requiring that “[e]very action must
be prosecuted in the name of the real party in interest,” Fed. R. Civ. P. 17(a),
and “requir[ing] that the complaint be brought in the name of the party to
whom that claim ‘belongs’ or the party who ‘according to the governing
substantive law, is entitled to enforce the right.’” Rawoof v. Texor Petroleum
Co., Inc., 521 F.3d 750, 756 (7th Cir. 2008) (quoting Oscar Gruss & Son, Inc.
v. Hollander, 337 F.3d 186, 193 (2d Cir. 2003)); see also RK Co. v. See, 622
F.3d 846, 850 (7th Cir. 2010) (“the real party in interest rule is only concerned
with whether an action can be maintained in the plaintiff's name,” and is
“similar to, but distinct from, constitutional ... standing”). The real party in
interest is “the one who by the substantive law, possesses the right sought to
be enforced, and not necessarily the person who will ultimately benefit from the
recovery.” Act II Jewelry, LLC v. Wooten, 301 F. Supp. 3d 905, 910-911 (N.D.
17

2128 Case 2:20-cv-01771-PP Filed 12/09/20 Page 17 of 45 Document 83

Ill. 2018) (quoting Checkers, Simon & Rosner v. Lurie Corp., 864 F.2d 1338,
1343 (7th Cir. 1988) (internal citations omitted)). The purpose of the rule is to
“protect the defendant against a subsequent action by the party actually
entitled to recover.” RK Co., 622 F.3d at 850 (citing Fed. R. Civ. P. 17(a)
advisory committee note (2009)).
The amended complaint alleges that the plaintiff has standing “as a voter
and as a candidate for the office of Elector under Wis. Stat. §§ 5.10, et seq
(election procedures for Wisconsin electors).” Dkt. No. 9 at 8. The defendants
argue that the plaintiff lacks standing in either capacity. Dkt. No. 43 at 4-5;
Dkt. No. 59 at 8-9.
a.

Standing as a voter

The amended complaint does not assert that the plaintiff voted in the
2020 general Presidential election in Wisconsin. It says that he is a registered
voter, but it does not affirmatively state that he voted in the election the results
of which he asks the court to decertify. His counsel asserts in the brief in
opposition to the defendants’ motion to dismiss—filed eight days after the
original complaint and five days after the amended complaint—that the plaintiff
“voted for President Trump in the 2020 General Election.” Dkt. No. 72 at 17.
For the first time at the motion to dismiss stage, the plaintiff provided his own
declaration, in which he attests that he voted for President Donald J. Trump in
the November 3, 2020 election. Dkt. No. 72-1.
The plaintiff claims that the defendants failed to comply “with the
requirements of the Wisconsin Election Code and thereby diluted the lawful
18

2129 Case 2:20-cv-01771-PP Filed 12/09/20 Page 18 of 45 Document 83

ballots of the Plaintiff and of other Wisconsin voters and electors in violation of
the United States Constitution guarantee of Equal Protection.” Dkt. No. 9 at
¶116. He alleges that the defendants enacted regulations or issued guidance
that, in intent and effect, favored Democratic absentee voters over Republican
voters, and that these regulations and this guidance enable and facilitated
voter fraud. Id. The plaintiff also asserts that he has a right to have his vote
count and claims that a voter is injured if “the important of his vote is
nullified.” Id. at ¶127.
Several lower courts have addressed the plaintiff’s theory that a single
voter has standing to sue as a result of his vote being diluted by the possibility
of unlawful or invalid ballots being counted. The district court for the Middle
District of North Carolina catalogued a few of those decisions, all finding that
the harm was too speculative and generalized—not sufficiently “concrete”—to
bestow standing. These courts concluded that the vote dilution argument fell
into the “generalized grievance” category. In Moore v. Circosta, the court wrote:
Indeed, lower courts which have addressed standing in vote dilution
cases arising out of the possibility of unlawful or invalid ballots
being counted, as Plaintiffs have argued here, have said that this
harm is unduly speculative and impermissibly generalized because
all voters in a state are affected, rather than a small group of voters.
See, e.g., Donald Trump for President, Inc. v. Cegavske, Case No.
2:20-CV-1445 JCM (VCF), __ F. Supp. 3d __, __, 2020 WL 5626974,
at *4 (D. Nev. Sept. 18, 2020) (“As with other generally available
grievances about the government, plaintiffs seek relief on behalf of
their member voters that no more tangibly benefits them than it does
the public at large.”) (internal quotations and modifications omitted);
Martel v. Condos, Case No. 5:20-cv-131, ___ F. Supp. 3d ___, ___,
2020 WL 5755289, at *4 (D. Vt. Sept. 16, 2020) (“If every voter
suffers the same incremental dilution of the franchise caused by
some third-party’s fraudulent vote, then these voters have
experienced a generalized injury.”); Paher v. Cegavske, 457 F. Supp.
19

2130 Case 2:20-cv-01771-PP Filed 12/09/20 Page 19 of 45 Document 83

3d 919, 926-27 (D. Nev. 2020) (“Plaintiffs’ purported injury of having
their votes diluted due to ostensible election fraud may be
conceivably raised by any Nevada voter.”); Am. Civil Rights Union v.
Martinez-Rivera, 166 F. Supp. 3d 779, 789 (W.D. Tex. 2015) (“[T]he
risk of vote dilution [is] speculative and, as such, [is] more akin to a
generalized grievance about the government than an injury in fact.”)
Although “[i]t would over-simplify the standing analysis to conclude
that no state-wide election law is subject to challenge simply
because affects all voters,” Martel, __ F. Supp.3d at __, 2020 WL
5755289, at *4, the notion that a single person’s vote will be less
valuable as a result of unlawful or invalid ballots being cast is not a
concrete and particularized injury necessary for Article III standing.
Compared to a claim of gerrymandering, in which the injury is
specific to a group of voters based on their racial identity or the
district in which they live, all voters in North Carolina, not just
Individual Plaintiffs, would suffer the injury Individual Plaintiffs
allege. This court finds this injury to generalized to give rise to a
claim of vote dilution . . . .
Moore v. Circosta, Nos. 1:20CV911, 1:20CV912, 2020 WL 6063332, at *14,
The court agrees. The plaintiff’s alleged injuries are injuries that any
Wisconsin voter suffers if the Wisconsin election process were, as the plaintiff
alleges, “so riddled with fraud, illegality, and statistical impossibility that this
Court, and Wisconsin’s voters, courts, and legislators, cannot rely on, or
certify, any numbers resulting from this election.” Dkt. No. 9 at ¶5. The
plaintiff has not alleged that, as a voter, he has suffered a particularized,
concrete injury sufficient to confer standing.
The plaintiff argues that it is incorrect to say that his standing is based
on a theory of vote dilution. Dkt. No. 72 at 19. He then proceeds to opine that
he has shown in great detail how his vote and the votes of others who voted for
Republican candidates was diluted. Id. at 19-20. He says the vote dilution did
not affect all Wisconsin voters equally, asserting that it had a negative impact
20

2131 Case 2:20-cv-01771-PP Filed 12/09/20 Page 20 of 45 Document 83

on those who voted for Republican candidates and a positive impact on those
who voted for Democratic candidates. Id. at 20. He asserts that he also has
shown that the defendants sought to actively disenfranchise voters for
Republican candidates. Id. These are the same arguments he made in the
amended complaint and they still show no more than a generalized grievance
common to any voter. Donald J. Trump carried some Wisconsin counties; the
voters who voted for Joseph R. Biden in those counties could make the same
complaints the plaintiff makes here.
The plaintiff says that his interests and injury are “identical to that of
President Trump,” and cites to Bush v. Gore, 531 U.S. 98 (2000), which he
characterizes as holding that “then-candidate George W. Bush of Texas had
standing to raise the equal protection rights of Florida voters that a majority of
the Supreme Court deemed decisive.” Id. at 21 (quoting Hawkins v. Wayne
Twp. Bd. of Marion Cty., Ind, 183 F. Supp. 2d 1099, 1103 (S.D. Ind. 2002)).
The court is stymied by the plaintiff’s assertion that his interests and injury are
identical to that of President Trump. As the court will explain in the next
section, contrary to his assertions, the plaintiff is not a “candidate” in the way
that President Trump was a candidate for office. President Trump’s interest is
in being re-elected, while the plaintiff has said that his interest is in having his
vote count and not be diluted. If his interest is solely in getting President
Trump re-elected, as opposed to having his vote be counted as part of a valid
election process, the court is aware of no constitutional provision that gives
him the right to have his candidate of choice declared the victor.
21

2132 Case 2:20-cv-01771-PP Filed 12/09/20 Page 21 of 45 Document 83

Nor does the decision in Bush v. Gore say what the plaintiff claims it
says. As far as the court can tell, the word “standing” does not appear in the
majority opinion. In the Indiana decision the plaintiff cites, then-district court
judge David Hamilton wrote: “If candidate Hawkins did not have standing to
raise equal protection rights of voters, it would be difficult to see how thencandidate George W. Bush of Texas had standing to raise equal protection
rights of Florida voters . . . in Bush v. Gore.” Hawkins, 183 F. Supp.2d at 1103.
But the Supreme Court in Bush v. Gore never explained how candidate Bush
had standing, and even if it had, the plaintiff is not a candidate.
Nor has the plaintiff demonstrated redressability. He complains that his
vote was diluted and that he wants his vote to count. But he asks the court to
order the results of the election de-certified and then to order defendant Evers
to certify the election for Donald J. Trump. Even if this federal court had the
authority to order the governor of the state of Wisconsin to certify the results of
a national presidential election for any candidate—and the plaintiff has
presented no case, statute or constitutional provision providing the court with
that authority—doing so would further invalidate and nullify the plaintiff’s vote.
The plaintiff wants Donald J. Trump to be certified as the winner of the
Wisconsin election as a result of the plaintiff’s vote. But what he asks is for
Donald J. Trump to be certified the winner as a result of judicial fiat. That
remedy does not redress the plaintiff’s alleged injury. Even the plaintiff
concedes in his brief in opposition to dismissal that “[d]efendant Evers can . . .
provide partial redress in terms of the requested injunctive relief, namely, by
22

2133 Case 2:20-cv-01771-PP Filed 12/09/20 Page 22 of 45 Document 83

refusing to certify or transmit the election results, and providing access to
voting machines, records and other ‘election materials.’” Dkt. No. 72 at 21. The
plaintiff is wrong in that regard, as the court will explain when it discusses the
related doctrine of mootness; the point is that even from the plaintiff’s
perspective, the remedy he seeks will not fully redress the injury he claims.
Circling back to Article III’s “case or controversy” requirement, the
Supreme Court has held that “[t]he remedy must of course be limited to the
inadequacy that produced the injury in fact that the plaintiff has established.”
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 353 (2006) (quoting Lewis v.
Casey, 518 U.S. 343, 357 (1996)). In other words, “[a] plaintiff’s remedy must
be tailored to redress the plaintiff’s particular injury.” Gill v. Whitford, ___ U.S.
___, 138 S. Ct. 1916, 1934 (2018) (citing Cuno, 547 U.S. at 353). Even if the
plaintiff had alleged a particularized, concrete injury and even if the relief he
seeks would redress that injury, that relief is not tailored to the alleged injury.
As the Michigan court explained in King v. Whitmer, Case No. 20-13134 at Dkt.
No. 62, page 25 (E.D. Mich. Dec. 7, 2020), “Plaintiffs’ alleged injury does not
entitle them to seek their requested remedy because the harm of having one’s
vote invalidated or diluted is not remedied by denying millions of others their
right to vote.”
The plaintiff’s status as a registered voter does not give him standing to
sue.

23

2134 Case 2:20-cv-01771-PP Filed 12/09/20 Page 23 of 45 Document 83

b.

Standing as a nominee for elector

The amended complaint alleges that the plaintiff has standing to bring
the suit “as a candidate for the office of Elector under Wis. Stat. §§ 5.10, et
seq.” Dkt. No. 9 at ¶26. The amended complaint cites to “Wis. Stat. §§5.10, et
seq,” but the court is not sure what the “et seq.”—“and what follows”—
contributes to the plaintiff’s belief that he has standing. Wis. Stat. §5.10 is
followed by Wis. Stat. §5.15, which concerns the “Division of municipalities
into wards,” as well as other sections concerning polling places and voting
machines. The court assumes the plaintiff meant to reference only Wis. Stat.
§5.10.
Wis. Stat. §5.10 states:
Although the names of the electors do not appear on the ballot and
no reference is made to them, a vote for the president and vice
president named on the ballot is a vote for the electors of the
candidates for whom an elector’s vote is cast. Under chs. 5 to 12, all
references to the presidential election, the casting of votes and the
canvassing of votes for president, or for president and vice president,
mean votes for them through their pledged presidential electors.
Relying on this section, the amended complaint directs the court’s
attention to Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020).2 In Carson,
The complaint also cites two Supreme Court cases: McPherson v. Blacker,
146 U.S. 1, 27 (1892) and Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S.
70, 76 (2000) (per curiam). Neither address the Article III standing of an elector.
In McPherson, the Court reviewed the Michigan supreme court’s decision on
the constitutionality of the Michigan statute governing selection of electors.
While the parties who brought the suit in state court were nominees for
presidential electors, the Court did not address their standing (or lack of it).
The petitioner in Bush was the then-Republican candidate, George W. Bush,
who was challenging the Florida supreme court’s interpretation of its election
statutes; again, the Court did not address (and had no need to address) the
standing of an elector to sue.
2

24

2135 Case 2:20-cv-01771-PP Filed 12/09/20 Page 24 of 45 Document 83

two certified nominees of the Republican Party to be presidential electors sued
the Minnesota secretary of state, challenging a consent decree that “essentially
ma[de] the statutorily-mandated absentee ballot receipt deadline inoperative.”
Id. at 1054. As a result of the decree, the secretary of state had directed
election officials “to count absentee ballots received up to a week after election
day, notwithstanding Minnesota law.” Id. The potential electors sought an
injunction in federal court, but the district court found they lacked standing.
Id.
The Eighth Circuit reversed, finding that the potential electors had
standing as candidates “because the plain text of Minnesota law treats
prospective presidential electors as candidates.” Id. at 1057. The court found
that candidates suffered particularized and concrete injury from an inaccurate
vote tally. Id. at 1058.
The plaintiff urges this court to reach the same conclusion. An Eighth
Circuit decision is not binding on this court, but the question is whether the
reasoning in that decision is persuasive. A member of the panel in Carson
dissented from the majority opinion and expressed doubt about the potential
electors’ standing. Circuit Judge Jane Kelley wrote:
. . . I am not convinced the Electors have Article III standing to assert
claims under the Electors Clause. Although Minnesota law at times
refers to them as “candidates,” see, e.g., Minn. Stat. § 204B.03
(2020), the Electors are not candidates for public office as that term
is commonly understood. Whether they ultimately assume the office
of elector depends entirely on the outcome of the state popular vote
for president. Id. § 208.04 subdiv. 1 (“[A] vote cast for the party
candidates for president and vice president shall be deemed a vote

25

2136 Case 2:20-cv-01771-PP Filed 12/09/20 Page 25 of 45 Document 83

for that party’s electors.”) They are not presented to and chosen by
the voting public for their office, but instead automatically assume
that office based on the public’s selection of entirely different
individuals. But even if we nonetheless assume the Electors should
be treated like traditional political candidates for standing purposes,
I question whether these particular candidates have demonstrated
the “concrete and particularized” injury necessary for Article III
standing. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 . . . (1992).
To the contrary, their claimed injury—a potentially “inaccurate vote
tally” . . .—appears to be “precisely the kind of undifferentiated,
generalized grievance about the conduct of government: that the
Supreme Court has long considered inadequate for standing. Lance
v. Coffman, 549 U.S. 437, 442 . . . (2007) (examining standing in the
context of a claim under the Elections Clause). Because the Electors,
should they in fact assume that office, must swear an oath to mark
their Electoral College ballots for the presidential candidate who won
the popular vote, Minn. Stat. § 208.43 (2015), it is difficult to discern
how they have more of a “particularized stake,” Lance, 549 U.S. at
442 . . . , in Minnesota conducting fair and transparent elections
than do the rest of the state’s voters.
Id. at 1063.
Judge Kelly’s reasoning is the more persuasive. Under Wisconsin law, a
vote for the candidates of president and vice president is a vote for the electors
of those candidates. Wis. Stat. § 5.65(3)(a). When the electors meet, they must
vote for the candidates of the party that nominated the electors. Wis. Stat.
§7.75(2). Like Minnesota electors, Wisconsin electors may be referred to as
“candidates” by statute but they are not traditional political candidates
presented to and chosen by the voting public. Their interest in seeing that
every valid vote is correctly counted and that no vote is diluted is no different
than that of an ordinary voter. And the court has concluded, as did Judge
Kelly, that the plaintiff’s status as a voter does not give him standing.
The amended complaint does not mention the Elections Clause or the
Electors Clause of the Constitution in relation to standing. In his brief in
26

2137 Case 2:20-cv-01771-PP Filed 12/09/20 Page 26 of 45 Document 83

opposition to the motions to dismiss, the plaintiff alleges that he has standing
under “Electors and Elections Clause.” Dkt. No. 72 at 17. He asserts that the
Eighth Circuit found in Carson that electors had “both Article III and
Prudential standing under the Electors and Elections Clauses.” Id. The plaintiff
reads Carson differently than does this court. The Carson majority did not
mention the Electors or Elections Clause in its discussion of Article III
standing. The entire discussion of Article III standing was based on Minnesota
law. See Carson, 978 F.3d at 1-57-1058. In its discussion of prudential
standing, the Carson majority stated that “[a]lthough the Minnesota Legislature
may have been harmed by the Secretary’s usurpation of its constitutional right
under the Elector Clause, the Electors have been as well.” Id. at 1058-59.
This court has found that the plaintiff does not have Article III standing,
but even if had not, it disagrees that the Elector Clause3 provides prudential
standing to electors. Article II, Section 1, Clause 2 of the Constitution—known
as the “Elector Clause”—states that “[e]ach State shall appoint, in such Manner
as the Legislature thereof may direct, a Number of Electors, equal to the whole
Number of Senators and Representatives to which the State may be entitled in
the Congress: but no Senator or Representative, or Person holding an Office of
The plaintiff cites the “Elector and Elections Clause” or “Clauses” in the same
breath but does not discuss the text of either. It is not clear how the plaintiff
sees the Elections Clause—Article II, Sec. 1, cl. 3—as providing him with
standing and the plaintiff has not developed that argument. The court notes
only that in Lance v. Coffman, the Supreme Court found that plaintiffs whose
only alleged injury was that the Elections Clause had not been followed did not
have standing because they alleged “precisely the kind of undifferentiated,
generalized grievance about the conduct of government that we have refused to
countenance in the past.” Lance, 549 U.S. at 442.
3

27

2138 Case 2:20-cv-01771-PP Filed 12/09/20 Page 27 of 45 Document 83

Trust or Profit under the United States, shall be appointed an Elector.” The
clause confers on the state the right to appoint electors and confers on the
legislature the right to decide the way those electors will be appointed. It
confers no right on the electors themselves. Just a few months ago, the
Supreme Court stated as much in Chiafalo v. Washington, ___ U.S. ___, 140 S.
Ct. 2316, 2328 (July 6, 2020), in the context of considering whether a state
could penalize an elector for breaking his pledge and voting for someone other
than the candidate who won his state’s popular vote:4 “Article II and the
Twelfth Amendment give States broad powers over electors, and give electors
themselves no rights.” The Court went on to say,
Early in our history, States decided to tie electors to the presidential
choices of others, whether legislatures or citizens. Except that
legislatures no longer play a role, that practice has continued for
more than 200 years. Among the devices States have long used are
pledge laws, designed to impress on electors their role as agents of
others. A State follows in the same tradition if, like [the state of]
Washington, it chooses to sanction an elector for breaching his
promise. Then, too, the State instructs its electors that they have no
ground for reversing the vote of millions of its citizens. That direction
accords with the Constitution—as well as with the trust of a Nation
that here, We the People rule.
Id.
The plaintiff’s status as a nominee to be a Republican elector does not
give him Article III or prudential standing.

Wisconsin’s “pledge law”—Wis. Stat. §7.75(1)—does not impose a penalty on a
“faithless elector.”
4

28

2139 Case 2:20-cv-01771-PP Filed 12/09/20 Page 28 of 45 Document 83

2.

Mootness

Mootness “has sometimes been called ‘the doctrine of standing set in a
time frame.’” Chi. Joe’s Tea Room, LLC v. Vill. of Broadview, 894 F.3d 807,
812-13 (7th Cir. 2018) (quoting Friends of the Earth, Inc. v. Laidlaw Envtl.
Services (TOC), Inc., 528 U.S. 167, 189 (2000)). A case becomes moot “‘when
the issues presented are no longer “live” or the parties lack a legally cognizable
interest in the outcome.’” Already, LLC v. Nike, Inc., 568 U.S. 85, 91 (2013)
(quoting Murphy v. Hunt, 455 U.S. 478, 481 (1982) (per curiam)). “Mootness
strips a federal court of subject-matter jurisdiction.” Id. at 815 (citing DJL
Farm LLC v. EPA, 813 F.3d 1048, 1050 (7th Cir. 2016). This is because “[a]
case that becomes moot at any point during the proceedings is ‘no longer a
“Case” or “Controversy” for purposes of Article III.’” United States v. SanchezGomez, __ U.S. __, 138 S. Ct. 1532, 1537 (2018) (quoting Already, LLC, 568
U.S. at 91).
The amended complaint states that the plaintiff brought this suit “to
prohibit certification of the election results for the Office of President of the
United States in the State of Wisconsin . . . .” Dkt. No. 9 at ¶27. The plaintiff
asks the court to prohibit from occurring an event that already has occurred—
an event that occurred the day before he filed this lawsuit and nine days before
the court issues this order. He asks the court to enjoin defendant Evers from
transmitting the certified election results, id. at ¶142—an event that already
has occurred. He asks the court to order that certain votes not be counted, id.,
when the vote counting has been over since November 29.
29

2140 Case 2:20-cv-01771-PP Filed 12/09/20 Page 29 of 45 Document 83

The plaintiff himself demonstrates the mootness problem in his brief in
opposition to dismissal. He states that defendant Evers can provide partial
redress for his alleged injuries “by refusing to certify or transmit the election
results.” Dkt. No. 72 at 21. But Evers already has certified and transmitted the
elections results—he cannot refuse to do that which he already has done.
At the December 8 hearing, the plaintiff argued that there remains a live
controversy because the electors have not yet voted and will not do so until
Monday, December 14, 2020. Dkt. No. 70. This argument ignores the fact that
several of the events that dictate which slate of nominees are certified to vote
already have taken place and had taken place at the time the plaintiff filed his
complaint. The votes have been counted. In two counties, they’ve been counted
twice. The WEC chair has signed the canvass and certified electors for
Biden/Harris. The governor has signed the Certificate of Ascertainment and the
National Archive has that certificate.
In his brief in opposition to dismissal, the plaintiff points to this court’s
own order earlier in this case, determining that the plaintiff had not
demonstrated why the December 8, 2020 “safe harbor” deadline under 3 U.S.C.
§5 was the date by which the plaintiff needed the court to issue a decision to
preserve his rights. Dkt. No. 72 at 25 (citing Dkt. No. 29 at 7). The court noted
in that order that the plaintiff’s brief in opposition to a motion to reassign
another case erroneously referred to December 8 as the date that the College of
Electors was scheduled to meet. Dkt. No. 29 at 7. The court pointed out that
that was incorrect, and that December 8 was the deadline by which the state
30

2141 Case 2:20-cv-01771-PP Filed 12/09/20 Page 30 of 45 Document 83

would have to make its final determination of any election dispute in order to
avoid congressional challenge. Id. The court then said, “Because the electors do
not meet and vote until December 14, 2020, the court will impose a less
truncated briefing schedule than the one the plaintiff proposes . . . .” Dkt. No.
29.
The plaintiff says that “[i]mplicit in this Court’s determination” is the
assumption that “this Court can still grant some or perhaps all of the relief
requested and this Plaintiff’s claims are not moot.” Dkt. No. 72 at 25. The
plaintiff reads more into the court’s language than the court intended. In the
plaintiff’s earliest pleadings—the first motion for injunctive relief, the
“corrected” motion for injunctive relief, the “amended” motion for injunctive
relief—the plaintiff failed to identify a date by which he needed the court to act.
The first time he identified such a date was in his brief in opposition to a
motion to reassign another case—and then, the reference was oblique. In his
opposition brief, the plaintiff stated, “With the College of Electors scheduled to
meet December 8, there could never be a clearer case of ‘justice delayed is
justice denied.’” Dkt. No. 18 at 1. From that, the court deduced that the
plaintiff needed the court to act by the date the College of Electors was
scheduled to meet. But the College of Electors was not scheduled to meet
December 8—it was (and is) scheduled to meet December 14. So the court set a
briefing schedule that would give the defendants a chance to respond, but
would complete briefing ahead of the event the plaintiff deemed important—the

31

2142 Case 2:20-cv-01771-PP Filed 12/09/20 Page 31 of 45 Document 83

electoral meeting and vote. That was not a decision by this court—implicit or
explicit—on the mootness of the plaintiff’s claims.
The plaintiff also asserts that the “cutoff for election-related challenges,
at least in the Seventh Circuit, appears to be the date that the electors meet,
rather than the date of certification.” Dkt. No. 72 at 24. He cites Swaffer v.
Deininger, No. 08-CV-208, 2008 WL 5246167 (E.D. Wis. Dec. 17, 2008).
Swaffer is not a Seventh Circuit case, and the court is not aware of a Seventh
Circuit case that establishes a “cutoff for election-related challenges.” And the
plaintiff seems to have made up the “quote” in his brief that purports to be
from Swaffer. The plaintiff asserts that these words appear on page 4 of the
Swaffer decision: “even though the election has passed, the meeting of electors
obviously has not, so plaintiff’s claim here is hardly moot.” Dkt. No. 72 at 2425. The court has read page 4 of Swaffer—a decision by this court’s colleague,
Judge J.P. Stadtmueller—three times and cannot find these words. In fact,
Swaffer did not involve a challenge to a presidential election and it did not
involve electors. Mr. Swaffer sought to challenge a Wisconsin statute requiring
individuals or groups promoting or opposing a referendum to file a registration
statement and take other actions. Swaffer, 2008 WL 5246167, at *1. The
defendants argued that the election (in which the plaintiff had taken steps to
oppose a referendum on whether to allow liquor sales in the Town of
Whitewater) was over and that Swaffer’s claims thus were moot. Id. at 2. Judge
Stadtmueller disagreed, finding that because Swaffer alleged that he intended

32

2143 Case 2:20-cv-01771-PP Filed 12/09/20 Page 32 of 45 Document 83

to violate the statutes at issue in the future, a credible threat of prosecution
remained. Id. at 3.
Some of the relief the plaintiff requests may not be moot. For example, he
asks for an immediate order seizing voting machines, ballots and other
materials relating to the physical mechanisms of voting. And there remain five
days until the electors vote—as the events of this year have shown, anything
can happen. But most of the relief the plaintiff seeks is beyond this court’s
ability to redress absent the mythical time machine.
3.

Conclusion

The plaintiff does not have Article III standing to sue in federal court for
the relief he seeks.
C.

Other Arguments

Standing is the sine qua non of subject matter jurisdiction. Absent
standing, the court does not have jurisdiction to consider the plaintiff’s claims
on the merits. Arguably, it has no jurisdiction to consider the other bases the
defendants and amici assert for why the court should dismiss the case. At the
risk of producing dicta (and spilling even more ink on a topic that has received
an ocean’s worth by now), the court will briefly address some of the other bases
for the sake of completeness.
1.

Eleventh Amendment Immunity

The defendants argue that the plaintiff’s claims are barred by the
Eleventh Amendment. Dkt. No. 59 at 15; Dkt. No. 54 at 10. The Eleventh
Amendment “bars most claims in federal court against a state that does not
33

2144 Case 2:20-cv-01771-PP Filed 12/09/20 Page 33 of 45 Document 83

consent to suit.” Carmody v. Bd. of Trs. of Univ. of Ill., 893 F.3d 397, 403 (7th
Cir. 2018) (citations omitted). States are immune from suit in federal court
“unless the State consents to the suit or Congress has abrogated their
immunity.” Tucker v. Williams, 682 F.3d 654, 658 (7th Cir. 2012) (citing
Seminole Tribe v. Florida, 517 U.S. 44 (1996)). This includes suits brought in
federal court against nonconsenting states by their own citizens. See, e.g.,
Edelman v. Jordan, 415 U.S. 651, 663 (1974); Hans v. Louisiana, 134 U.S. 1,
15 (1890) (“Can we suppose that, when the eleventh amendment was adopted,
it was understood to be left open for citizens of a state to sue their own state in
the federal courts, while the idea of suits by citizens of other states, or of
foreign states, was indignantly repelled?”).
The plaintiff has sued the Governor of Wisconsin, Tony Evers, in his
official capacity; the Wisconsin Elections Commission and each member of the
WEC in his or her official capacity. Before going too much further down the
Eleventh Amendment road, the court notes that the vehicle for the plaintiff to
bring his constitutional claims—his claims under the Elector Clause, the
Elections Clause, the Equal Protection Clause and the Due Process Clause—is
42 U.S.C. §1983. Section 1983 prohibits a “person” acting under color of state
law from violating another’s civil rights. The Wisconsin Elections Commission
is not a “person.” It is an arm of the state of Wisconsin, Wis. Stat. §5.05, and
“states are not suable ‘persons’ under 42 U.S.C. § 1983.” Phillips v. Baxter, 768
F. App’x 555, 559-560 (7th Cir. 2019) (citing Sebesta v. Davis, 878 F.3d 226,
231 (7th Cir. 2017)). See also, Will v. Mich. Dept. of State Police, 491 U.S. 58,
34

2145 Case 2:20-cv-01771-PP Filed 12/09/20 Page 34 of 45 Document 83

64 (1989) (“a State is not a person within the meaning of § 1983”). “Section
1983 provides a federal forum to remedy many deprivations of civil liberties,
but it does not provide a federal forum for litigants who seek a remedy against
a State for alleged deprivations of civil liberties.” Will, 491 U.S. at 66. The WEC
is not the proper defendant for the plaintiff’s constitutional claims.
The plaintiff faces the same problem with his claims against the
individual defendants, all of whom are state officials whom he sues in their
official capacities.5
Obviously, state officials literally are persons. But a suit against a
state official in his or her official capacity is not a suit against the
official but rather is a suit against the official’s office. Brandon v.
Holt, 469 U.S. 464, 471 . . . (1985). As such, it is no different from a
suit against the State itself. See, e.g., Kentucky v. Graham, 473 U.S.
159, 165-66 . . . (1985); Monell [v. New York City Dept. of Social
Services, 436 U.S. 658], at 690 [(1978)].
Id. at 71. Arguably, none of the defendants are subject to suit under 42 U.S.C.
§1983, which means that even if the plaintiff had standing, the court would
have to dismiss Counts I, II and III of the amended complaint.
Circling back to the defendants’ Eleventh Amendment argument, “The
Eleventh Amendment extends to state agencies and departments and, subject
to the Ex Parte Young doctrine, to state employees acting in their official
capacities.” Nelson v. LaCrosse Cty. Dist. Atty. (State of Wis.), 301 F.3d 820,

Had the plaintiff sued the individual defendants in their personal capacities,
he could have sought relief against them under 42 U.S.C. §1983, assuming he
had standing.
5

35

2146 Case 2:20-cv-01771-PP Filed 12/09/20 Page 35 of 45 Document 83

827 n.7 (7th Cir. 2002) (citing Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 123-24 (1984)).
There are three exceptions to Eleventh Amendment immunity: (1)
congressional abrogation, Nuñez v. Ind. Dep’t of Child Servs., 817 F.3d 1042,
1044 (7th Cir. 2016) (citing Alden v. Maine, 527 U.S. 706, 754-55 (1999); (2) “a
state’s waiver of immunity and consent to suit,” id. (citing College Savings
Bank v. Fla. Prepaid Postsecondary Educ. Expense Bd., 527 U.S. 666, 675
(1999)); and (3) a suit “against state officials seeking only prospective equitable
relief,” id. (citing Ex parte Young, 209 U.S. 123, 159-60 (1908)). None of the
exceptions apply here.
Congress did not abrogate the sovereign immunity of the states when it
enacted 42 U.S.C. §1983. Will, 491 U.S. at 66. Wisconsin has not waived its
immunity from civil actions under §1983. See Shelton v. Wis. Dep’t of Corr.,
376 Wis. 2d 525, *2 (Table) (Ct. App. 2017) (citing Boldt v. State, 101 Wis. 2d
566, 584-85 (1981)). And the Ex parte Young doctrine does not apply when a
plaintiff asserts a claim—regardless of the relief requested—against a state
official based on state law. Pennhurst, 465 U.S. at 106 (“A federal court’s grant
of relief against state officials on the basis of state law, whether prospective or
retroactive, does not vindicate the supreme authority of federal law. On the
contrary, it is difficult to think of a greater intrusion on state sovereignty than
when a federal court instructs state officials on how to conform their conduct
to state law.”). “In determining whether the Ex parte Young doctrine avoids an
Eleventh Amendment bar to suit, a court need only conduct a ‘straightforward
36

2147 Case 2:20-cv-01771-PP Filed 12/09/20 Page 36 of 45 Document 83

inquiry’ into whether the complaint alleges an ongoing violation of federal law
and seeks relief properly characterized as prospective.” Verizon Md., Inc. v.
Pub. Serv. Comm’n of Md., 535 U.S. 635, 636 (2002) (quoting Idaho v. Coeur
d’Alene Tribe of Idaho, 521 U.S. 261, 296 (1997); McDonough Assocs., Inc. v.
Grunloh, 722 F.3d 1043, 1051 (7th Cir. 2013)).
Count IV of the amended complaint alleges “[w]ide-spread ballot fraud,” a
state-law claim. The Eleventh Amendment bars that claim against the
defendants in their official capacities. The Eleventh Amendment also bars the
plaintiff’s federal claims to the extent that the plaintiff seeks retrospective
relief. The Supreme Court has refused to extend the Ex Parte Young doctrine to
claims for retrospective relief. Green v. Mansour, 474 U.S. 64, 68 (1985) (citing
Pennhurst, 465 U.S. at 102-103). The amended complaint seeks (1) a
“temporary restraining order instructing Defendants to de-certify the results of
the General Election for the Office of President,” dkt. no. 9 at 47; (2) “an order
instructing the Defendants to certify the results of the General Election for
Office of the President in favor of President Donald Trump,” id.; (3) “a
temporary restraining order” prohibiting the tabulation of unlawful votes,” id.;
(4) an order preserving voting equipment and data, id.; (5) “the elimination of
the mail ballots from counting in the 2020 election,” id. at 48; (6) the
disqualification of Wisconsin’s electors from participating in the 2020 election,
id.; and (7) an order directing Wisconsin’s electors to vote for President Donald
Trump, id. As the court already has noted, with the possible exception of the

37

2148 Case 2:20-cv-01771-PP Filed 12/09/20 Page 37 of 45 Document 83

request for an order preserving voting equipment and data, the relief the
plaintiff requests is retrospective.
The plaintiff disagrees—he characterizes the certification of the election
results as “ongoing violations of federal law . . . ongoing violations of the
Electors and Elections Clauses, the Equal Protection and Due Process Clauses,
as well as likely violations of federal law including the Voting Rights Act and
the Help America Vote Act.” Dkt. No. 72 at 25-26. The plaintiff has not brought
claims under the latter two statutes and saying that a completed event is an
ongoing violation doesn’t make it so.
2.

Exclusive Remedy/Exhaustion/Abstention

Defendant Evers moves to dismiss because Wisconsin provides a remedy
to address irregularities or defects during the voting or canvassing process:
Wis. Stat. §9.01(11). Four days ago, the Wisconsin Supreme Court held that
§9.01(6) requires that a party aggrieved after a recount must appeal by filing
suit in circuit court. Trump v. Evers, No. 2020AP1971-OA, Order at *2 (Wis.
Dec. 3, 2020). In a concurring opinion, Justice Hagedorn noted that Wis. Stat.
§9.01(11) provides that §9.01 is the exclusive judicial remedy for an aggrieved
candidate. Defendant Evers points out that President Trump has lawsuits
pending in state circuit courts and argues that those cases raise many of the
claims the plaintiff raises here. Dkt. No. 59 at 11. He argues that the process
detailed in Wis. Stat. §9.01 is designed to allow an aggrieved candidate to
resolve election challenges promptly, and that for this court to permit the

38

2149 Case 2:20-cv-01771-PP Filed 12/09/20 Page 38 of 45 Document 83

plaintiff to circumvent that process “would eviscerate Wisconsin’s careful
process for properly and quickly deciding election challenges.” Id. at 11-12.
Of course, the plaintiff has no redress under Wis. Stat. §9.01, because he
is not a “candidate” in the sense of that statute. But Evers argues that there
was a form of state-law relief available to the plaintiff. He asserts that the
plaintiff should have filed a complaint with the Wisconsin Elections
Commission under Wis. Stat. §5.06. Dkt. No. 59 at 13. That statute allows a
voter dissatisfied with the Wisconsin election process to file a written, sworn
complaint with the elections board. Wis. Stat. §5.06(1). The statute states that
no voter may “commence an action or proceeding to test the validity of any
decision, action or failure to act on the part of any election official” without first
filing a complaint under §5.06(1). Wis. Stat. §5.06(2). Evers points out that the
plaintiff has not demonstrated that he followed this procedure and thus that
the plaintiff did not exhaust his remedies before coming to federal court. Dkt.
No. 59 at 14.
The plaintiff does not directly respond to the exhaustion argument. He
simply maintains that he has a right to bring his constitutional claims in
federal court, argues that there is no evidence that the statute Evers cites is an
exhaustion requirement and asserts that the court has federal question
jurisdiction under 28 U.S.C. §1331 and supplemental jurisdiction over any
state-law claims under 28 U.S.C. §1367.6 Dkt. No. 72 at 27-28. He neatly
The court could exercise supplemental jurisdiction over state-law claims only
if there remained federal claims to which those state-law claims related. As the
court has noted, it likely would have been required to dismiss the federal
6

39

2150 Case 2:20-cv-01771-PP Filed 12/09/20 Page 39 of 45 Document 83

sidesteps the question of why he did not follow a procedure that would have
allowed him to direct his concerns to the entity in charge of enforcing the
state’s election laws and in a way that likely would have brought those
concerns to that entity’s attention long before the election results were
certified.
Because the court has concluded that the plaintiff does not have
standing, and because the plaintiff has sued defendants who either are not
suable under §1983 or are protected by Eleventh Amendment immunity, the
court will not accept the invitations of the defendants and amici to wade into
the waters of the various types of abstention. If this court does not have subject
matter jurisdiction, there is no case or controversy from which it should
abstain. The court agrees with the parties, however, that the relief the plaintiff
requests—asking a federal judge to order a state governor to decertify the
election results for an entire state and direct that governor to certify a different
outcome—constitutes “an extraordinary intrusion on state sovereignty from
which a federal court should abstain under longstanding precedent.” Dkt. No.
57 at 28.
3.

Laches

The defendants argue that the equitable defense of laches requires
dismissal, because the plaintiff “inexplicably waited until after the election,
after the canvassing, after the recount, after the audit, after results were
claims because the plaintiff asserted them through §1983 against state officials
in their official capacities, which in turn would have required dismissal of any
state claims for lack of subject matter jurisdiction.
40

2151 Case 2:20-cv-01771-PP Filed 12/09/20 Page 40 of 45 Document 83

certified, and indeed until the eve of the electoral college vote, to bring his claim
of state law violations and widespread fraud . . . .” Dkt. No. 52 at 11. See also,
Dkt. No 59 at 17 (“the doctrine of laches bars [the plaintiff’s] claims because he
has unreasonably delayed bringing his claims to the detriment not only of
Defendants, but also of the nearly 3.3 million voters in Wisconsin who voted in
this last election under the good-faith belief that they were following the correct
procedures to have their votes counted.”).
The doctrine of laches “addresses delay in the pursuit of a right when a
party must assert that right in order to benefit from it.” Hot Wax, Inc. v. Turtle
Wax, Inc., 191 F.3d 813, 820 (7th Cir. 1999). “For laches to apply in a
particular case, the party asserting the defense must demonstrate: (1) an
unreasonable lack of diligence by the party against whom the defense is
asserted and (2) prejudice arising therefrom.” Id. (citing Cannon v. Univ. of
Health Scis./The Chicago Med. Sch., 710 F.2d 351, 359 (7th Cir. 1983)).
“Timeliness must be judged by the knowledge of the plaintiffs as well as the
nature of the right involved.” Jones v. v. Markiewicz-Qualkinbush, 842 F.3d
1053, 1061 (7th Cir. 2016).
“The obligation to seek injunctive relief in a timely manner in the election
context is hardly a new concept.” Id. at 1060-61. In fact, the Seventh Circuit
has held that such “claims must be brought expeditiously . . . to afford the
district court sufficient time in advance of an election to rule without
disruption of the electoral cycle.” Id. at 1061 (internal quotation marks and
citations omitted).
41

2152 Case 2:20-cv-01771-PP Filed 12/09/20 Page 41 of 45 Document 83

The amended complaint asserts that the alleged problems with the
Dominion voting machine software “have been widely reported in the press and
have been subject to investigation.” Dkt. No. 9 at ¶12. It cites to exhibits from
January and August of 2020. Dkt. No. 9 at 5 n.1. It cites to the WEC’s May 13,
2020 directive to clerks that they should not reject the ballots of “indefinitely
confined” absentee voters. Id. at ¶40. It cites an October 18, 2016
memorandum issued by the WEC instructing clerks on how to handle absentee
envelope certifications that did not bear the address of the witness. Id. at ¶44.
It cites October 19, 2020 instructions by the WEC to clerks about filling in
missing ballot information. Id. at ¶45.
Defendant Evers points out that the plaintiff’s own allegations
demonstrate that he has known about the Dominion voting machine issues
since long before the election. Dkt. No. 59 at 17-18. He argues that the WEC
guidance about which the plaintiff complains came in directives issued in
October 2016, May 2020 and October 2020. Id. He asserts that the plaintiff has
made no effort “to offer a justifiable explanation for why he waited until weeks
after the election to challenge” these issues. Id. at 18. The WEC defendants
advise the court that the issue regarding “indefinitely confined” voters was
litigated in state court almost eight months ago. Dkt. No. 54 at 9 (citing Pet.
For Original Action dated March 27, 2020, Supreme Court of Wisconsin, No.
2020AP000557-OA). They assert that the plaintiff “waited to challenge widelyknown procedures until after millions of voters cast their ballots in reliance on
those procedures.” Id. at 6. They state that “[i]f the doctrine of laches means
42

2153 Case 2:20-cv-01771-PP Filed 12/09/20 Page 42 of 45 Document 83

anything, it is that Plaintiff here cannot overturn the results of a completed and
certified election through preliminary relief in this late-filed case.” Id.
The plaintiff first responds that laches is a defense and shouldn’t be
raised on a motion to dismiss. Dkt. No. 72 at 22. He then claims that he could
not have known the bases of any of these claims until after the election. Id. at
22-23. He says that because Wisconsin election officials did not “announce or
publicize their misconduct,” and because, he alleges, they “prevented
Republican poll watchers from observing the ballot counting and handling,” it
took him time to gather the evidence and testimony he attached to the
amended complaint. Id. at 23. Finally, he alleges that the delay post-November
3, 2020 is attributable to the defendants’ failure to timely complete the election
count. Id. He insists that he filed this suit at the earliest possible moment—the
day after the certification. Id.
The court has determined that the plaintiff does not have standing. That
means that the court does not have jurisdiction to assess the plaintiff’s
credibility, and it will refrain from doing so.
4.

Failure to state a claim upon which relief can be granted

Both defendants asked the court to dismiss the case for failure to state a
claim under Fed. R. Civ. P. 12(b)(6). Because the court does not have subject
matter jurisdiction, it will not address the sufficiency of the substantive claims
in the amended complaint.

43

2154 Case 2:20-cv-01771-PP Filed 12/09/20 Page 43 of 45 Document 83

5.

Requests for injunctive relief

For the same reason, the court cannot address the merits of the
plaintiff’s request for preliminary injunctive relief.
V.

Conclusion
This court’s authority to grant relief is confined by the limits of the

Constitution. Granting the relief the plaintiff requests would take the
court far outside those limits, and outside the limits of its oath to uphold
and defendant the Constitution. The court will grant the defendants’
motion to dismiss.
The court GRANTS Defendant Governor Tony Evers’s Motion to
Dismiss Plaintiff’s Amended Complaint. Dkt. No. 51.
The court GRANTS Defendant Wisconsin Elections Commission
and Its Members’ Motion to Dismiss. Dkt. No. 53.
The court DENIES AS MOOT Plaintiff’s Corrected Motion for
Declaratory, Emergency, and Permanent Injunctive Relief. Dkt. No. 6.
The court DENIES AS MOOT Plaintiff’s Amended Motion for
Temporary Restraining Order and Preliminary Injunction to be Considered
in an Expedited Manner Dkt. No. 10.
The court DISMISSES the Amended Complaint for Declaratory,
Emergency, and Permanent Injunctive Relief. Dkt. No. 9.

44

2155 Case 2:20-cv-01771-PP Filed 12/09/20 Page 44 of 45 Document 83

The court ORDERS that this case is DISMISSED.
Dated in Milwaukee, Wisconsin this 9th day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

45

2156 Case 2:20-cv-01771-PP Filed 12/09/20 Page 45 of 45 Document 83

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S NOTICE OF APPEAL
______________________________________________________________________________
Notice is hereby given that William Feehan, Plaintiff in the above named case, hereby appeals
to the United States Court of Appeals for the Seventh Circuit from the District Court’s Order dated
December 9, 2020, ECF Dkt. No.83, dismissing his Amended Complaint for Declaratory,
Emergency, and Permanent Injunctive Relief, Dkt. No. 9, and denying as moot his Corrected
Motion for Declaratory, Emergency, and Permanent Injunctive Relief, Dkt. No. 6, and Amended
Motion for Temporary Restraining Order and Preliminary Injunction to be Considered in an
Expedited Manner, Dkt. No. 10.

2157

Case 2:20-cv-01771-PP Filed 12/10/20 Page 1 of 2 Document 84

Dated December 10, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

2158

Case 2:20-cv-01771-PP Filed 12/10/20 Page 2 of 2 Document 84

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
Plaintiff,
JUDGMENT IN A CIVIL CASE
v.
Case No. 20-cv-1771-pp
WISCONSIN ELECTIONS COMMISSION,
ANN S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMANN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F. SPINDELL, JR.,
and TONY EVERS,
Defendants.


Jury Verdict. This case came before the court for a trial by jury. The
parties have tried the issues, and the jury has rendered its verdict.

Decision by Court. This case came before the court, the court has
decided the issues, and the court has rendered a decision.
THE COURT ORDERS AND ADJUDGES that judgment is entered in
favor of the defendants and against the plaintiff.
THE COURT ORDERS that this case is DISMISSED.
Approved and dated in Milwaukee, Wisconsin this 9th day of December,
2020.
BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge
GINA M. COLLETTI
Clerk of Court
s/ Cary Biskupic
(by) Deputy Clerk

2159

Case 2:20-cv-01771-PP Filed 12/10/20 Page 1 of 1 Document 85

APPEAL,ATTYOPEN,RF

United States District Court
Eastern District of Wisconsin (Milwaukee)
CIVIL DOCKET FOR CASE #: 2:20−cv−01771−PP
Feehan et al v. Wisconsin Elections Commission et al
Assigned to: Chief Judge Pamela Pepper
Cause: 42:1983 Civil Rights Act

Date Filed: 12/01/2020
Jury Demand: None
Nature of Suit: 441 Civil Rights: Voting
Jurisdiction: Federal Question

Plaintiff
William Feehan

represented by Daniel J Eastman
Eastman Law
PO Box 158
Mequon, WI 53092
414−881−9383
Email: daneastman@me.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael D Dean
Michael D Dean LLC
17035 W Wisconsin Ave − Ste 100
PO Box 2545
Brookfield, WI 53008
262−798−8044
Fax: 262−798−8045
Email: miked@michaelddeanllc.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brandon Johnson
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
Emily P Newman
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
Howard Kleinhendler
Howard Kleinhendler Esq
369 Lexington Ave − 12th Fl
New York, NY 10017
917−793−1188
Fax: 732−901−0832

2160 Case 2:20-cv-01771-PP Filed 12/10/20 Page 1 of 66 Document 86

Email: howard@kleinhendler.com
ATTORNEY TO BE NOTICED
Julia Z Haller
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
L Lin Wood
L Lin Wood PC
PO Box 52584
Atlanta, GA 30305−0584
404−891−1402
ATTORNEY TO BE NOTICED
Sidney Powell
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
214−707−1775
Email: sidney@federalappeals.com
ATTORNEY TO BE NOTICED
Plaintiff
Derrick Van Orden
TERMINATED: 12/03/2020

represented by Michael D Dean
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brandon Johnson
(See above for address)
ATTORNEY TO BE NOTICED
Daniel J Eastman
(See above for address)
ATTORNEY TO BE NOTICED
Emily P Newman
(See above for address)
ATTORNEY TO BE NOTICED
Howard Kleinhendler
(See above for address)
ATTORNEY TO BE NOTICED
Julia Z Haller
(See above for address)
ATTORNEY TO BE NOTICED
L Lin Wood
(See above for address)

2161 Case 2:20-cv-01771-PP Filed 12/10/20 Page 2 of 66 Document 86

ATTORNEY TO BE NOTICED
Sidney Powell
(See above for address)
ATTORNEY TO BE NOTICED

V.
Defendant
Wisconsin Elections Commission

represented by Colin T Roth
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707−7857
608−266−0020
Fax: 608−267−2223
Email: rothct@doj.state.wi.us
ATTORNEY TO BE NOTICED
Jody J Schmelzer
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707−7857
608−266−3094
Fax: 608−267−8906
Email: schmelzerjj@doj.state.wi.us
ATTORNEY TO BE NOTICED
Sean Michael Murphy
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707−7857
608−266−5457
Fax: 608−267−2223
Email: murphysm@doj.state.wi.us
ATTORNEY TO BE NOTICED

Defendant
Commissioner Ann S Jacobs

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED

2162 Case 2:20-cv-01771-PP Filed 12/10/20 Page 3 of 66 Document 86

Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Mark L Thomsen

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Commissioner Marge Bostelmann

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Julie M Glancey

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Commissioner Dean Knudson

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)

2163 Case 2:20-cv-01771-PP Filed 12/10/20 Page 4 of 66 Document 86

ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Robert F Spindell, Jr

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Tony Evers

represented by Davida Brook
Susman Godfrey LLP
1901 Ave of the Stars − Ste 950
Los Angeles, CA 90061
310−789−3100
Fax: 310−789−3150
Email: dbrook@susmangodfrey.com
ATTORNEY TO BE NOTICED
Jeffrey A Mandell
Stafford Rosenbaum LLP
222 W Washington Ave − Ste 900
PO Box 1784
Madison, WI 53701−1784
608−256−0226
Fax: 608−259−2600
Email: jmandell@staffordlaw.com
ATTORNEY TO BE NOTICED
Justin A Nelson
Susman Godfrey LLP
1000 Louisiana St − Ste 5100
Houston, TX 77002−5096
713−653−7895
Fax: 713−654−6666
Email: jnelson@susmangodfrey.com
ATTORNEY TO BE NOTICED
Paul M Smith
Campaign Legal Center
1101 14th St NW − Ste 400

2164 Case 2:20-cv-01771-PP Filed 12/10/20 Page 5 of 66 Document 86

Washington, DC 20005
202−856−7901
Fax: 202−736−2222
Email: psmith@campaignlegal.org
ATTORNEY TO BE NOTICED
Rachel E Snyder
Stafford Rosenbaum LLP
222 W Washington Ave − Ste 900
PO Box 1784
Madison, WI 53701−1784
608−259−2657
Fax: 608−259−2600
Email: rsnyder@staffordlaw.com
ATTORNEY TO BE NOTICED
Richard Manthe
Stafford Rosenbaum LLP
222 W Washington Ave − Ste 900
PO Box 1784
Madison, WI 53701−1784
608−259−2684
Email: rmanthe@staffordlaw.com
ATTORNEY TO BE NOTICED
Stephen Morrissey
Susman Godfrey LLP
1201 3rd Ave − Ste 3800
Seattle, WA 98101
206−373−7380
Email: smorrissey@susmangodfrey.com
ATTORNEY TO BE NOTICED
Stephen Shackelford , Jr
Susman Godfrey LLP
1301 Ave of the Americans −32nd Fl
New York, NY 10019
212−729−2012
Email: sshackelford@susmangodfrey.com
ATTORNEY TO BE NOTICED
Amicus
Wisconsin State Conference NAACP

represented by Allison E Laffey
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7003
Fax: 414−755−7089
Email: alaffey@llgmke.com
ATTORNEY TO BE NOTICED
Ezra D Rosenberg

2165 Case 2:20-cv-01771-PP Filed 12/10/20 Page 6 of 66 Document 86

Lawyers Committee for Civil Rights Under
Law
1500 K Street NW − Ste 900
Washington, DC 20005
202−662−8345
Fax: 202−783−0857
Email: erosenberg@lawyerscommittee.org
ATTORNEY TO BE NOTICED
Jacob Conarck
Lawyer's Committee for Civil Rights Under
Law
1500 K St NW − 9th Fl
Washington, DC 20005
202−662−8315
Fax: 202−783−0857
Email: jpconarck@gmail.com
ATTORNEY TO BE NOTICED
John W Halpin
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7261
Fax: 414−755−7089
Email: jhalpin@llgmke.com
ATTORNEY TO BE NOTICED
Jon Greenbaum
Lawyers'Committee for Civil Rights Under
Law
District Of Columbia
1500 K Street NW − 9th Fl
Washington, DC 20005
202−662−8315
Email: jgreenbaum@lawyerscommittee.org
ATTORNEY TO BE NOTICED
Joseph S Goode
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7003
Fax: 414−755−7089
Email: jgoode@llgmke.com
ATTORNEY TO BE NOTICED
Mark M Leitner
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7003

2166 Case 2:20-cv-01771-PP Filed 12/10/20 Page 7 of 66 Document 86

Fax: 414−755−7089
Email: mleitner@llgmke.com
ATTORNEY TO BE NOTICED
Amicus
Dorothy Harrell

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED

Amicus
Wendell J. Harris, Sr.

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner

2167 Case 2:20-cv-01771-PP Filed 12/10/20 Page 8 of 66 Document 86

(See above for address)
ATTORNEY TO BE NOTICED
Amicus
Earnestine Moss

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED

V.
Intervenor
Democratic National Committee

represented by Sopen B Shah
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−7460
Fax: 608−663−7460
Email: SShah@perkinscoie.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Will McDonell Conley
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−7460
Fax: 608−663−7499
Email: WConley@perkinscoie.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

2168 Case 2:20-cv-01771-PP Filed 12/10/20 Page 9 of 66 Document 86

Charles G Curtis , Jr
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−5411
Fax: 608−663−7499
Email: ccurtis@perkinscoie.com
ATTORNEY TO BE NOTICED
Christopher Bouchoux
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007
212−230−8823
Email: christopher.bouchoux@wilmerhale.com
ATTORNEY TO BE NOTICED
David S Lesser
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007
212−230−8851
Email: david.lesser@wilmerhale.com
ATTORNEY TO BE NOTICED
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007
212−937−7236
Email: jamie.dycus@wilmerhale.com
ATTORNEY TO BE NOTICED
Michelle M Umberger
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−7460
Fax: 608−663−7499
Email: MUmberger@perkinscoie.com
ATTORNEY TO BE NOTICED
Seth P Waxman
Wilmer Cutler Pickering Hale and Dorr
LLP
1875 Pennsylvania Ave NW
Washington, DC 20006
202−663−6800
Fax: 202−663−6363

2169 Case 2:20-cv-01771-PP Filed 12/10/20 Page 10 of 66 Document 86

Email: seth.waxman@wilmerhale.com
ATTORNEY TO BE NOTICED

V.
Movant
James Gesbeck

represented by James Gesbeck
9302 Harvest Moon Lane
Verona, WI 53593
PRO SE

Date Filed

#

12/01/2020

1

COMPLAINT against All Plaintiffs by William Feehan. ( Filing Fee PAID
$400 receipt number AWIEDC−3652059) (Attachments: # 1 Exhibit, # 2
Exhibit, # 3 Exhibit, # 4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8
Exhibit, # 9 Exhibit, # 10 Exhibit, # 11 Exhibit, # 12 Exhibit, # 13 Exhibit, # 14
Exhibit, # 15 Exhibit, # 16 Exhibit, # 17 Exhibit, # 18 Exhibit, # 19 Exhibit, #
20 Exhibit, # 21 Exhibit, # 22 Exhibit, # 23 Exhibit, # 24 Exhibit, # 25 Exhibit,
# 26 Exhibit, # 27 Exhibit)(Dean, Michael) (Additional attachment(s) added on
12/1/2020: # 28 Civil Cover Sheet) (jcl).

12/01/2020

2

MOTION for Temporary Restraining Order by All Plaintiffs. (Dean, Michael)

12/01/2020

3

BRIEF in Support filed by All Plaintiffs re 2 MOTION for Temporary
Restraining Order . (Dean, Michael)

12/01/2020

Page Docket Text

NOTICE Regarding assignment of this matter to Chief Judge Pamela Pepper;
Consent/refusal forms for Magistrate Judge Joseph to be filed within 21 days;
the consent/refusal form is available here. Pursuant to Civil Local Rule 7.1 a
disclosure statement is to be filed upon the first filing of any paper and should
be filed now if not already filed. (jcl)

12/01/2020

4

Magistrate Judge Jurisdiction Form filed by All Plaintiffs. (NOTICE: Pursuant
to Fed.R.Civ.P. 73 this document is not viewable by the judge.) (Dean,
Michael)

12/01/2020

5

DISCLOSURE Statement by All Plaintiffs. (Dean, Michael)

12/01/2020

6

MOTION to Amend/Correct Docket # 2: PLAINTIFFS MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE
RELIEF by All Plaintiffs. (Attachments: # 1 Text of Proposed Order)(Dean,
Michael)

12/02/2020

7

ORDER signed by Chief Judge Pamela Pepper on 12/2/2020 re 6 Amended
Motion for Injunctive Relief. (cc: all counsel)(cb)

12/02/2020

8

NOTICE of Appearance by Sidney Powell on behalf of All Plaintiffs.
Attorney(s) appearing: Sidney Powell (Powell, Sidney)

12/03/2020

9

AMENDED COMPLAINT removing Derrick Van Orden as Plaintiff against
All Defendants filed by William Feehan. (Attachments: # 1 Exhibit, # 2 Exhibit,
# 3 Exhibit, # 4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8 Exhibit, # 9
Exhibit, # 10 Exhibit, # 11 Exhibit, # 12 Exhibit, # 13 Exhibit, # 14 Exhibit, #

2170 Case 2:20-cv-01771-PP Filed 12/10/20 Page 11 of 66 Document 86

15 Exhibit, # 16 Exhibit, # 17 Exhibit, # 18 Exhibit, # 19 Exhibit)(Dean,
Michael)
12/03/2020

10

Emergency MOTION to Amend/Correct Docket # 6: PLAINTIFFS
CORRECTED MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF by William Feehan. (Attachments: # 1
Information Sheet Proposed Briefing Schedule)(Dean, Michael)

12/03/2020

11

NOTICE of Appearance by Jeffrey A Mandell on behalf of Tony Evers.
Attorney(s) appearing: Jeffrey A. Mandell (Mandell, Jeffrey)

12/03/2020

12

NOTICE of Appearance by Rachel E Snyder on behalf of Tony Evers.
Attorney(s) appearing: Rachel E. Snyder (Snyder, Rachel)

12/03/2020

13

NOTICE of Appearance by Howard Kleinhendler on behalf of William Feehan.
Attorney(s) appearing: Howard Kleinhendler (Kleinhendler, Howard)

12/03/2020

14

MOTION to Intervene by James Gesbeck. (Attachments: # 1 Proposed Answer,
# 2 Certificate of Service)(asc)

12/03/2020

15

BRIEF in Support filed by James Gesbeck re 14 MOTION to Intervene. (asc)

12/03/2020

16

MOTION Reassign Case Pursuant to Civil L.R. 3(b) by Tony Evers.
(Attachments: # 1 Exhibit 1 − Notice from Case 20−CV−1785)(Mandell,
Jeffrey)

12/03/2020

17

NOTICE of Appearance by Sean Michael Murphy on behalf of Marge
Bostelmann, Julie M Glancey, Ann S Jacobs, Dean Knudson, Robert F
Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission. Attorney(s)
appearing: Sean Michael Murphy, Jody J. Schmelzer, Colin T. Roth (Murphy,
Sean)

12/03/2020

18

RESPONSE to Motion filed by William Feehan re 16 MOTION Reassign Case
Pursuant to Civil L.R. 3(b) . (Dean, Michael)

12/03/2020

19

ORDER signed by Chief Judge Pamela Pepper on 12/3/2020 DENYING 16
defendant Tony Evers's motion to reassign case pursuant to Civil L.R. 3(b). (cc:
all counsel)(cb)

12/03/2020

20

NOTICE of Appearance by Charles G Curtis, Jr on behalf of Democratic
National Committee. Attorney(s) appearing: Charles G. Curtis (Curtis, Charles)

12/03/2020

21

NOTICE of Appearance by Michelle M Umberger on behalf of Democratic
National Committee. Attorney(s) appearing: Michelle M. Umberger (Umberger,
Michelle)

12/03/2020

Party Derrick Van Orden terminated. (amb) (Entered: 12/04/2020)

12/04/2020

22

MOTION to Intervene by Democratic National Committee. (Attachments: # 1
Exhibit 1−Proposed Answer, # 2 Text of Proposed Order)(Umberger, Michelle)

12/04/2020

23

BRIEF in Support filed by Democratic National Committee re 22 MOTION to
Intervene . (Umberger, Michelle)

12/04/2020

24

DISCLOSURE Statement by Democratic National Committee. (Umberger,
Michelle)

12/04/2020

25

2171 Case 2:20-cv-01771-PP Filed 12/10/20 Page 12 of 66 Document 86

REPLY filed by Tony Evers to Plaintiff's Proposed Briefing Schedule.
(Mandell, Jeffrey)
12/04/2020

26

REPLY filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean
Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections
Commission to Plaintiff's Proposed Briefing Schedule. (Murphy, Sean)

12/04/2020

27

NOTICE of Appearance by Justin A Nelson on behalf of Tony Evers.
Attorney(s) appearing: Justin A. Nelson (Nelson, Justin)

12/04/2020

28

NOTICE of Appearance by Davida Brook on behalf of Tony Evers. Attorney(s)
appearing: Davida Brook (Brook, Davida)

12/04/2020

29

ORDER signed by Chief Judge Pamela Pepper on 12/4/2020. 10 Plaintiff's
amended motion GRANTED IN PART to extent that it is Civil L.R. 7(h)
expedited non−dispositive motion for expedited briefing schedule; defendant's
opposition to plaintiff's amended motion due by 5:00 PM on 12/7/2020,
plaintiff's reply due by 5:00 PM on 12/8/2020. The court DEFERS RULING on
plaintiff's amended motion to extent that it asks the court to issue TRO or
preliminary injunction. (cc: all counsel)(cb)

12/04/2020

30

NOTICE of Appearance by Stephen Shackelford, Jr on behalf of Tony Evers.
Attorney(s) appearing: Stephen L. Shackelford, Jr. (Shackelford, Stephen)

12/04/2020

31

NOTICE of Appearance by Richard Manthe on behalf of Tony Evers.
Attorney(s) appearing: Richard A. Manthe (Manthe, Richard)

12/04/2020

32

NOTICE of Appearance by Paul M Smith on behalf of Tony Evers. Attorney(s)
appearing: Paul M. Smith (Smith, Paul)

12/04/2020

33

7(h) Expedited NON−DISPOSITIVE MOTION to Intervene by James
Gesbeck. (Attachments: # 1 Certificate of Service)(lz)

12/04/2020

34

MOTION for Leave to File Excess Pages by Tony Evers. (Mandell, Jeffrey)

12/04/2020

35

NOTICE of Appearance by Sidney Powell on behalf of All Plaintiffs.
Attorney(s) appearing: Sidney Powell (Powell, Sidney)

12/04/2020

36

TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/4/2020 re
34 MOTION for Leave to File Excess Pages filed by Tony Evers: The
defendant seeks leave to file a brief in excess of the thirty pages allowed by
Civil L.R. 7(f) because he proposes to both oppose the plaintiff's amended
motion for injunctive relief and support his own, not yet filed motion to dismiss
in the same pleading. The court appreciates any party's effort to streamline
litigation, but would prefer that the defendant file separate briefs opposing the
plaintiff's amended motion and supporting his own. This will avoid confusion
when the plaintiff responds. The court DENIES the defendant's motion for
leave to file excess pages. NOTE: There is no document associated with this
text−only order. (cc: all counsel)(Pepper, Pamela)

12/04/2020

37

ORDER signed by Chief Judge Pamela Pepper on 12/4/2020 allowing James
Gesbeck to file amicus curiae brief by 5:00 PM on 12/7/2020. (cc: all counsel,
via mail to James Gesbeck)(cb)

12/05/2020

38

TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/5/2020 re
22 MOTION to Intervene filed by Democratic National Committee signed by

2172 Case 2:20-cv-01771-PP Filed 12/10/20 Page 13 of 66 Document 86

Chief Judge Pamela Pepper on 12/5/2020: Under Civil L.R. 7(b), the plaintiff's
response is due by December 25, 2020; because December 25 is a federal
holiday, the court ORDERS that the plaintiff's response is due by December
28, 2020. NOTE: There is no document associated with this text−only
order. (cc: all counsel)(Pepper, Pamela)
12/05/2020

39

TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/05/2020 re
33 MOTION to Intervene filed by James Gesbeck: Under Civil L.R. 7(h), the
plaintiff's response is due by Friday, December 11, 2020. NOTE: There is no
document associated with this text−only order. (cc: all counsel)(Pepper,
Pamela)

12/05/2020

40

Expedited MOTION to Intervene by Democratic National Committee.
(Umberger, Michelle)

12/06/2020

41

ORDER signed by Chief Judge Pamela Pepper on 12/6/2020. 40 Movant DNC's
expedited motion to intervene GRANTED to extent that court has expedited its
ruling on original motion to intervene. 22 Movant DNC's original motion to
intervene DENIED. Movant DNC may file amicus curiae brief by 5:00 PM on
12/7/2020. (cc: all counsel)(cb)

12/06/2020

42

BRIEF in Support filed by William Feehan re 10 Emergency MOTION to
Amend/Correct Docket # 6: PLAINTIFFS CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE
RELIEF Amended Brief. (Dean, Michael)

12/06/2020

43

MOTION To File Separate Reply Briefs by William Feehan. (Dean, Michael)

12/06/2020

44

MOTION To Hold Consolidated Evidentiary Hearing/Trial by William Feehan.
(Dean, Michael)

12/07/2020

45

TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/7/2020 re
43 MOTION To File Separate Reply Briefs filed by William Feehan: The court
GRANTS the plaintiff's motion for leave to file separate reply briefs. If the
defendants file a single opposition brief, the plaintiff must file one reply to that
brief. If the defendants file separate opposition briefs, the plaintiff may file a
reply for each opposition brief. The plaintiff also may file a separate reply for
each brief filed by an amicus. (In other words, the plaintiff could file up to four
reply briefs if the defendants file separate briefs and each amicus files a brief.)
If the defendants file a separate motion to dismiss, the plaintiff may file an
opposition brief of up to thirty pages under Civil L.R. 7(b). NOTE: There is no
document associated with this text−only order. (cc: all counsel)(Pepper,
Pamela)

12/07/2020

NOTICE of Hearing: Status Conference set for 12/8/2020 at 11:00 AM by
telephone before Chief Judge Pamela Pepper. The parties are to appear by
calling the court's conference line at 888−557−8511 and entering access code
4893665#. (cc: all counsel)(cb)

12/07/2020

46

12/07/2020

47

RESPONSE to Motion filed by Marge Bostelmann, Julie M Glancey, Ann S
Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin
Elections Commission re 44 MOTION To Hold Consolidated Evidentiary
Hearing/Trial . (Murphy, Sean)

2173 Case 2:20-cv-01771-PP Filed 12/10/20 Page 14 of 66 Document 86

AMICUS BRIEF in Opposition to 6 MOTION for Injunctive Relief filed by
James Gesbeck. (asc)
12/07/2020

48

NOTICE of Appearance by David S Lesser on behalf of Democratic National
Committee. Attorney(s) appearing: David S. Lesser (Lesser, David)

12/07/2020

49

NOTICE of Appearance by Jamie Dycus on behalf of Democratic National
Committee. Attorney(s) appearing: Jamie S. Dycus (Dycus, Jamie)

12/07/2020

50

NOTICE of Appearance by Stephen Morrissey on behalf of Tony Evers.
Attorney(s) appearing: Stephen E. Morrissey (Morrissey, Stephen)

12/07/2020

51

MOTION to Dismiss Plaintiff's Amended Complaint by Tony Evers. (Mandell,
Jeffrey)

12/07/2020

52

RESPONSE to Motion filed by Marge Bostelmann, Julie M Glancey, Ann S
Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin
Elections Commission re 2 MOTION for Temporary Restraining Order .
(Murphy, Sean)

12/07/2020

53

MOTION to Dismiss by Marge Bostelmann, Julie M Glancey, Ann S Jacobs,
Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections
Commission. (Murphy, Sean)

12/07/2020

54

BRIEF in Support filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs,
Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections
Commission re 53 MOTION to Dismiss . (Murphy, Sean)

12/07/2020

55

BRIEF in Opposition filed by Tony Evers re 10 Emergency MOTION to
Amend/Correct Docket # 6: PLAINTIFFS CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE
RELIEF . (Attachments: # 1 Exhibit 1 WVA v. WEC, # 2 Exhibit 2 Trump v.
Boockvar, # 3 Exhibit 3 Wood v. Raffensperger, # 4 Exhibit 4 Wood v.
Raffensperger (11th Cir.), # 5 Exhibit 5 King v. Whitmer TRO Decision, # 6
Exhibit 6 Zilisch v. R.J. Reynolds, # 7 Exhibit 7 Consolidate Water v..40 Acres,
# 8 Exhibit 8 Jefferson v. Dane County, # 9 Exhibit 9 Bognet v. Secretary of
Commonwealth, # 10 Exhibit 10 O'Bright v. Lynch Order, # 11 Exhibit 11
Trump v. Evers Order)(Mandell, Jeffrey)

12/07/2020

56

MOTION for Leave to File Amicus Curiae Brief by Wisconsin State
Conference NAACP, Dorothy Harrell, Wendell J. Harris, Sr., Earnestine Moss.
(Goode, Joseph)

12/07/2020

57

BRIEF in Opposition filed by Democratic National Committee re 10
Emergency MOTION to Amend/Correct Docket # 6: PLAINTIFFS
CORRECTED MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF . (Attachments: # 1 Exhibit 1 −
Washington Voters Alliance Case, # 2 Exhibit 2 − Trump v. Evers Case, # 3
Exhibit 3 − Mueller v. Jacobs Case, # 4 Exhibit 4 − King v. Benson Case, # 5
Exhibit 5 − March 29, 2020 Guidance, # 6 Exhibit 6 − Jefferson v. Dane Case,
# 7 Exhibit 7 − October 18, 2016 Guidance, # 8 Exhibit 8 − Election Manual, #
9 Exhibit 9 − November 10, 2020 Guidance)(Umberger, Michelle)

12/07/2020

58

UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed by Marge
Bostelmann, Julie M Glancey, Ann S Jacobs, Dean Knudson, Robert F
Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission (Attachments:

2174 Case 2:20-cv-01771-PP Filed 12/10/20 Page 15 of 66 Document 86

# 1 Exhibit 1− Martel v. Condos, # 2 Exhibit 2− Moore v. Circosta, # 3 Exhibit
3− Donald J. Trump for President v. Cegavske, # 4 Exhibit 4− Bognet v.
Secretary of the Commonwealth of Pennsylvania, # 5 Exhibit 5− Donald J.
Trump for President v. Boockvar, # 6 Exhibit 6− Donald J. Trump for President
v. Pennsylvania, # 7 Exhibit 7− Wood v. Raffensperger, # 8 Exhibit 8− King v.
Whitmer)(Murphy, Sean)
12/07/2020

59

BRIEF in Support filed by Tony Evers re 51 MOTION to Dismiss Plaintiff's
Amended Complaint . (Attachments: # 1 Exhibit 1 Whitake v. Kenosha, # 2
Exhibit 2 Bognet v. Secretary of Commenwealth, # 3 Exhibit 3 Hotze v.
Hollins, # 4 Exhibit 4 Wood v. Raffensperger, # 5 Exhibit 5 Wood v.
Raffensperger (11th Cir.), # 6 Envelope 6 Moore v. Circosta, # 7 Exhibit 7
Trump v. Evers, # 8 Exhibit 8 WVA v. WEC, # 9 Exhibit 9 Trump Notice of
Appeal, # 10 Exhibit 10Trump v. Biden Consolidation Order, # 11 Exhibit 11
Andino v. Middleton, # 12 Exhibit 12 Massey v. Coon, # 13 Exhibit 13 Balsam
v. New Jersey, # 14 Exhibit 14 Thompson v. Alabama, # 15 Exhibit 15
Braynard Expert Report)(Mandell, Jeffrey)

12/07/2020

60

BRIEF in Opposition filed by Tony Evers re 44 MOTION To Hold
Consolidated Evidentiary Hearing/Trial . (Mandell, Jeffrey)

12/08/2020

61

NOTICE of Appearance by Jon Greenbaum on behalf of Dorothy Harrell,
Wendell J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP.
Attorney(s) appearing: Jon Greenbaum (Greenbaum, Jon)

12/08/2020

62

NOTICE of Appearance by Allison E Laffey on behalf of Dorothy Harrell,
Wendell J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP.
Attorney(s) appearing: Allison E. Laffey (Laffey, Allison)

12/08/2020

63

NOTICE of Appearance by John W Halpin on behalf of Dorothy Harrell,
Wendell J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP.
Attorney(s) appearing: John W. Halpin (Halpin, John)

12/08/2020

64

NOTICE of Appearance by Mark M Leitner on behalf of Dorothy Harrell,
Wendell J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP.
Attorney(s) appearing: Mark M. Leitner (Leitner, Mark)

12/08/2020

65

NOTICE of Appearance by Joseph S Goode on behalf of Dorothy Harrell,
Wendell J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP.
Attorney(s) appearing: Joseph S. Goode (Goode, Joseph)

12/08/2020

66

NOTICE of Appearance by Ezra D Rosenberg on behalf of Dorothy Harrell,
Wendell J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP.
Attorney(s) appearing: Ezra D. Rosenberg (Rosenberg, Ezra)

12/08/2020

67

NOTICE of Appearance by Jacob Conarck on behalf of Wisconsin State
Conference NAACP. Attorney(s) appearing: Jacob P. Conarck (Conarck, Jacob)

12/08/2020

68

NOTICE of Appearance by Seth P Waxman on behalf of Democratic National
Committee. Attorney(s) appearing: Seth P. Waxman (Waxman, Seth)

12/08/2020

69

ORDER signed by Chief Judge Pamela Pepper on 12/8/2020 GRANTING 56
Motion for Leave to File Amicus Curiae Brief filed by Earnestine Moss,
Dorothy Harrell, Wisconsin State Conference NAACP, Wendell J. Harris, Sr.
(cc: all counsel)(cb)

2175 Case 2:20-cv-01771-PP Filed 12/10/20 Page 16 of 66 Document 86

12/08/2020

70

Audio of statue conference held on 12/8/2020 at 11:08 a.m.; File Size (51.1
MB) (kgw)

12/08/2020

71

Court Minutes and Order from the Status Conference held before Chief Judge
Pamela Pepper on 12/8/2020. The court DENIES the 44 Motion for
Consolidated Evidentiary Hearing and Trial on the Merits. The court ORDERS
the plaintiff to file his responses to the motions to dismiss (Dkt. Nos. 51 and 53)
and reply brief in support of his motion for injunctive relief (Dkt. No. 10) by
December 8, 2020 at 5 p.m. CST. The court ORDERS that if the defendants
and amici wish to file reply briefs in support of the motions to dismiss, they
must do so by December 9, 2020 at 3 p.m. CST. (Court Reporter Thomas
Malkiewicz.) (kgw)

12/08/2020

72

BRIEF in Opposition filed by William Feehan re 51 MOTION to Dismiss
Plaintiff's Amended Complaint, 10 Emergency MOTION to Amend/Correct
Docket # 6: PLAINTIFFS CORRECTED MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF , 53 MOTION to
Dismiss and Consolidated in Reply/Response to Response Briefs of Defendants
and Opposition Briefs of Amici. (Attachments: # 1 Exhibit, # 2 Exhibit)(Dean,
Michael)

12/09/2020

73

REPLY BRIEF in Support filed by Tony Evers re 51 MOTION to Dismiss
Plaintiff's Amended Complaint . (Attachments: # 1 Exhibit 1 American
Commercial Barge Lines v. Reserve FTL, # 2 Exhibit 2 Trump v. Secretary of
Pennsylvania)(Mandell, Jeffrey)

12/09/2020

74

ORDER signed by Chief Judge Pamela Pepper on 12/9/2020. 14 James
Gesbeck's motion to intervene DENIED. 33 James Gesbeck's Civil LR 7(h)
motion to intervene GRANTED to extent it asks the court to expedite ruling on
motion to intervene and DENIED to extent it asks the court to grant motion to
intervene. (cc: all counsel)(cb)

12/09/2020

75

MOTION to Seal Document Public Motion Prior to Filing Sealed/Restricted
Exhibits by William Feehan. (Attachments: # 1 Exhibit, # 2 Exhibit)(Dean,
Michael)

12/09/2020

76

BRIEF in Support filed by William Feehan re 75 MOTION to Seal Document
Public Motion Prior to Filing Sealed/Restricted Exhibits . (Dean, Michael)

12/09/2020

77

REPLY BRIEF in Support filed by Marge Bostelmann, Julie M Glancey, Ann S
Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin
Elections Commission re 53 MOTION to Dismiss . (Murphy, Sean)

12/09/2020

78

UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed by Marge
Bostelmann, Julie M Glancey, Ann S Jacobs, Dean Knudson, Robert F
Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission (Attachments:
# 1 Exhibit 1− King, # 2 Exhibit 2− Bognet, # 3 Exhibit 3− Boockvar, # 4
Exhibit 4− Hotze, # 5 Exhibit 5− Massey, # 6 Exhibit 6− Aguila Management,
# 7 Exhibit 7− Solow Building Co.)(Murphy, Sean)

12/09/2020

79

BRIEF in Opposition filed by Dorothy Harrell, Wendell J. Harris, Sr.,
Earnestine Moss, Wisconsin State Conference NAACP re 6 MOTION to
Amend/Correct Docket # 2: PLAINTIFFS MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF , 10 Emergency
MOTION to Amend/Correct Docket # 6: PLAINTIFFS CORRECTED

2176 Case 2:20-cv-01771-PP Filed 12/10/20 Page 17 of 66 Document 86

MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF . (Goode, Joseph)
12/09/2020

80

NOTICE of Appearance by Christopher Bouchoux on behalf of Democratic
National Committee. Attorney(s) appearing: Christopher Bouchoux (Bouchoux,
Christopher)

12/09/2020

81

NOTICE by Tony Evers Notice of Supplemental Authority (Brook, Davida)

12/09/2020

82

ORDER signed by Chief Judge Pamela Pepper on 12/9/2020 DENYING 75
plaintiff's Motion to Seal Document Public Motion Prior to Filing
Sealed/Restricted Exhibits. (cc: all counsel)(cb)

12/09/2020

83

ORDER DISMISSING CASE signed by Chief Judge Pamela Pepper on
12/9/2020. 51 Defendant Evers's motion to dismiss plaintiff's amended
complaint GRANTED. 53 Defendants Wisconsin Elections Commission and its
Members motion to dismiss GRANTED. 6 Plaintiff's corrected motion for
declaratory, emergency and permanent injunctive relief DENIED as moot. 10
Plaintiff's amended motion for temporary restraining order and preliminary
injunction to be considered in an expedited manner DENIED as moot. 9
Plaintiff's amended complaint for declaratory, emergency and permanent
injunctive relief DISMISSED. (cc: all counsel)(cb)

12/10/2020

84

NOTICE OF APPEAL as to 83 Order Dismissing Case,,, Terminate Motions,,
by William Feehan. Filing Fee PAID $505, receipt number AWIEDC−3664794
(cc: all counsel) (Dean, Michael)

12/10/2020

85

JUDGMENT signed by Deputy Clerk and approved by Chief Judge Pamela
Pepper on 12/9/2020. (cc: all counsel)(cb)

2177 Case 2:20-cv-01771-PP Filed 12/10/20 Page 18 of 66 Document 86

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
v.

Plaintiff,

CASE NO. 2:20-cv-1771

WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS, MARK
L. THOMSEN, MARGE BOSTELMAN,
JULIE M. GLANCEY, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS, in
his official capacity,
Defendants.
______________________________________________________________________________
PLAINTIFF’S NOTICE OF APPEAL
______________________________________________________________________________
Notice is hereby given that William Feehan, Plaintiff in the above named case, hereby appeals
to the United States Court of Appeals for the Seventh Circuit from the District Court’s Order dated
December 9, 2020, ECF Dkt. No.83, dismissing his Amended Complaint for Declaratory,
Emergency, and Permanent Injunctive Relief, Dkt. No. 9, and denying as moot his Corrected
Motion for Declaratory, Emergency, and Permanent Injunctive Relief, Dkt. No. 6, and Amended
Motion for Temporary Restraining Order and Preliminary Injunction to be Considered in an
Expedited Manner, Dkt. No. 10.

Case2:20-cv-01771-PP
2 20-cv-01771-PP Filed
Document
12/10/20
84 Page
Filed 12/10/20
19 of 66 Document
Page 1 of 2
86
2178 Case

Dated December 10, 2020.
ATTORNEYS FOR PLAINTIFF
/s Sidney Powell
Texas Bar No. 16209700
Sidney Powell PC
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler, Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

Local Counsel for Plaintiffs
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com
Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

Case2:20-cv-01771-PP
2 20-cv-01771-PP Filed
Document
12/10/20
84 Page
Filed 12/10/20
20 of 66 Document
Page 2 of 2
86
2179 Case

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION,
COMMISSIONER ANN S. JACOBS,
MARK L. THOMSEN, JULIE M. GLANCEY,
COMMISSIONER MARGE BOSTELMANN,
COMMISSIONER DEAN KNUDSON,
ROBERT F. SPINDELL, JR. and TONY EVERS,
Defendants.

ORDER GRANTING DEFENDANTS’ MOTIONS TO DISMISS
(DKT. NOS. 51, 53), DENYING AS MOOT PLAINTIFF’S AMENDED MOTION
FOR INJUNCTIVE RELIEF (DKT. NO. 6) AND DISMISSING CASE

At 8:24 a.m. on Tuesday, December 1, 2020—twenty-eight days after the
November 3, 2020 general Presidential election, thirteen days after President
Donald J. Trump petitioned for a recount in Milwaukee and Dane Counties and
one day after the Wisconsin Elections Commission and the Governor certified
that Joseph R. Biden and Kamala D. Harris had received the highest number of
votes following that recount—two plaintiffs filed this lawsuit in federal court for
the Eastern District of Wisconsin. Although state law governs the election
process, the plaintiffs brought the suit in a federal court, asking that federal
court to order state officials to decertify the election results that state officials
had certified the day before, order the Governor not to transmit to the Electoral

1
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
21 of 66 Document
Page 1 of 45
86
2180 Case

College the certified results he’d transmitted the day before and order the
Governor to instead transmit election results that declared Donald Trump to be
“the winner of this election.”
The election that preceded this lawsuit was emotional and often divisive.
The pleadings that have been filed over the past week are passionate and
urgent. People have strong, deep feelings about the right to vote, the freedom
and opportunity to vote and the value of their vote. They should. But the legal
question at the heart of this case is simple. Federal courts have limited
jurisdiction. Does a federal court have the jurisdiction and authority to grant
the relief this lawsuit seeks? The answer is no.
Federal judges do not appoint the president in this country. One wonders
why the plaintiffs came to federal court and asked a federal judge to do so.
After a week of sometimes odd and often harried litigation, the court is no
closer to answering the “why.” But this federal court has no authority or
jurisdiction to grant the relief the remaining plaintiff seeks. The court will
dismiss the case.
I.

Background
According to defendant the Wisconsin Elections Commission’s November

18, 2020 canvass results, 3,297,352 Wisconsin residents voted in the
November 3, 2020 general election for President. https://elections.wi.gov/
sites/elections.wi.gov/files/Statewide%20Results%20All%20Offices%20%28pre
-Presidential%20recount%29.pdf. Of those, 49.45%—1,630,673—voted for
Biden for President and Harris for Vice-President. Id. Biden and Harris received
2
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
22 of 66 Document
Page 2 of 45
86
2181 Case

approximately 20,600 more votes than Donald J. Trump for President and
Michael R. Pence for Vice-President. Id.
Under Wis. Stat. §9.01(1)(a)(1), any candidate in an election where more
than 4,000 votes were cast for the office the candidate seeks and who trails the
leading candidate by no more than 1 percent of the total votes cast for that
office may petition for a recount. On November 18, 2020, Donald J. Trump filed
a recount petition seeking a recount of “all ballots in all wards in every City,
Village, Town and other voting unit in Dane and Milwaukee Counties.”
https://elections.wi.gov/sites/elections.wi.gov/files/2020-11/WEC%20%20Final%20Recount%20Order_0.pdf. The Wisconsin Elections Commission
granted that petition and ordered a recount “using the ballot count method
selected per Wis. Stat. § 5.90(1) unless otherwise ordered by a court per Wis.
Stat. § 5.90(2).” Id. The WEC ordered the recount to be completed by 12:00
p.m. on December 1, 2020. Id.
The partial recount was completed on November 29, 2020.
https://elections.wi.gov/elections-voting/recount. On November 30, 2020, the
chair of the Wisconsin Elections Commission signed the statement of canvass
certifying that Joseph R. Biden and Kamala D. Harris received the greatest
number of votes and certified their electors. https://elections.wi.gov/sites/
elections.wi.gov/files/2020-11/Jacobs%20-%20Signed%20Canvass%20for%20
President%20-%20Vice%20President.pdf. The same day—November 30, 2020—
Wisconsin Governor Tony Evers announced that he had signed the Certificate
of Ascertainment for the electors for Biden and Harris.
3
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
23 of 66 Document
Page 3 of 45
86
2182 Case

https://content.govdelivery.com/accounts/WIGOV/bulletins/2aef6ff. The web
site for the National Archives contains the Certificate of Ascertainment signed
by Evers on November 30, 2020, certifying that out of 3,298,041 votes cast,
Biden and Harris and their electors received 1,630,866 votes, while Trump and
Pence and their electors received 1,610,184 votes. https://www.archives.gov/
files/electoral-college/2020/ascertainment-wisconsin.pdf.
On December 1, 2020, Donald J. Trump filed a petition for an original
action in the Wisconsin Supreme Court. Trump v. Evers, Case No.
2020AP001971-OA (available at https://wscca.wicourts.gov). On December 3,
2020, the court denied leave to commence an original petition because under
Wis. Stat. §9.01(6), appeals from the board of canvassers or the Wisconsin
Elections Commission must be filed in circuit court. Dkt. No. 59-7. The same
day—December 3, 2020—Donald J. Trump filed lawsuits in Milwaukee and
Dane Counties. Trump v. Biden, Case No. 2020CV007092 (Milwaukee County
Circuit Court; Trump v. Biden, Case No. 2020CV002514 (Dane County Circuit
Court) (both available at https://wcca.wicourts.gov). Those cases have been
consolidated and are scheduled for hearing on December 10, 2020 at 1:30 (or
for December 11, 2020 at 9:00 a.m. if the parties are litigating in another
court).
Meanwhile, on December 2, 2020, Donald J. Trump filed suit in federal
court for the Eastern District of Wisconsin, suing the defendants in this case
and others. Trump v. Wisconsin Elections Commission, et al., Case No. 20-cv-

4
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
24 of 66 Document
Page 4 of 45
86
2183 Case

1785-BHL (E.D. Wis.). There is an evidentiary hearing scheduled for December
10, 2020 at 9:00 a.m. by videoconference. Id. at Dkt. No. 45.
II.

Procedural History of the Case
On December 1, 2020—the day after Governor Evers signed the

Certificate of Ascertainment—William Feehan and Derrick Van Orden filed a
complaint in the federal court for the Eastern District of Wisconsin. Dkt. No. 1.
Feehan identified himself as a resident of La Crosse, Wisconsin, a registered
voter and “a nominee of the Republican Party to be a Presidential Elector on
behalf of the State of Wisconsin.” Id. at ¶23. Van Orden was identified as a
resident of Hager City, Wisconsin and the 2020 Republican nominee for
Wisconsin’s Third Congressional District Seat for the U.S. House of
Representatives. Id. at ¶26. The complaint alleged that “Mr. Van Orden ‘lost’ by
approximately 10,000 votes to the Democrat incumbent,” and stated that
“[b]ecause of the illegal voting irregularities as will be shown below, Mr. Van
Orden seeks to have a new election ordered by this court in the Third District,
with that election being conducted under strict adherence with the Wisconsin
Election Code.” Id. at ¶27.
The complaint alleged “massive election fraud, multiple violations of the
Wisconsin Election Code, see e.g., Wis. Stat. §§5.03, et seq., in addition to the
Election and Electors Clauses and Equal Protection Clause of the U.S.
Constitution” based on “dozens of eyewitnesses and the statistical anomalies
and mathematical impossibilities detailed in the affidavits of expert witnesses.”
Dkt. No. 1 at ¶1. The plaintiffs alleged four causes of action: (1) violation of the
5
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
25 of 66 Document
Page 5 of 45
86
2184 Case

Elections and Electors Clauses and 42 U.S.C. §1983; (2) violation of the Equal
Protection Clause of the Fourteenth Amendment, 42 U.S.C. §1983 and the
“invalid enactment of regulations & disparate treatment of absentee vs. mail-in
ballots”; (3) denial of the Fourteenth Amendment due process right to vote and
42 U.S.C. §1983; and (4) “wide-spread ballot fraud.” Id. at ¶¶106-138.

The

plaintiffs asked for the following emergency relief:
1.
An order directing Governor Evers and the Wisconsin
Elections Commission to de-certify the election results:
2.
An order enjoining Governor Evers from transmitting the
currently certified election results [sic] the Electoral College;
3.
An order requiring Governor Evers to transmit certified
election results that state that President Donald Trump is the
winner of the election;
4.
An immediate emergency order to seize and impound all
servers, software, voting machines, tabulators, printers, portable
media, logs, ballot applications, ballot return envelopes, ballot
images, paper ballots, and all “election materials” referenced in
Wisconsin Statutes §9.01(1)(b)11 related to the November 3, 2020
Wisconsin election for forensic audit and inspection by the Plaintiffs;
5.
An order that no votes received or tabulated by machines that
were not certified as required by federal and state law be counted;
6.
A declaratory judgment declaring that Wisconsin’s failed
system of signature verification violates the Electors and Elections
Clause by working a de facto abolition of the signature verification
requirement;
7.
A declaratory judgment declaring that currently certified
election results violate the Due Process Clause, U.S. Const. Amend.
XIV;
8.
A declaratory judgment declaring that mail-in and absentee
ballot fraud must be remedied with a Full Manual Recount or
statistically valid sampling that properly verifies the signatures on
absentee ballot envelopes and that invalidates the certified results if
6
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
26 of 66 Document
Page 6 of 45
86
2185 Case

the recount or sampling analysis shows a sufficient number of
ineligible absentee ballots were counted;
9.
A declaratory judgment declaring absentee ballot fraud
occurred in violation of Constitutional rights, Election laws and
under state law;
10. A permanent injunction prohibiting the Governor and
Secretary of State from transmitting the currently certified results
to the Electoral College based on the overwhelming evidence of
election tampering;
11. Immediate production of 48 hours of security camera
recording of all rooms used in the voting process at the TCF Center1
for November 3, 2020 and November 4, 2020;
12. Plaintiffs further request the Court grant such relief as is just
and proper including but not limited to, the costs of this action and
their reasonable attorney fees and expenses pursuant to 42 U.S.C.
§1988.
Id. at 50.
With the complaint, the plaintiffs filed a motion for declaratory,
emergency, and permanent injunctive relief, dkt. no. 2, and memorandum in
support of that motion, dkt. no. 3. The motion stated that the specific relief the
plaintiff requested was set out in an attached order, dkt. no. 2 at 1, but there
was no order attached. The memorandum asked the court to grant the motion
and enter the proposed order, dkt. no. 3 at 10; again, no proposed order was
provided.
Later that day, the plaintiffs filed a corrected motion for declaratory,
emergency, and permanent injunctive relief. Dkt. No. 6. The plaintiff did not file
a memorandum in support of this motion but did file a proposed order. Dkt.
The plaintiff may be referring to the TCF convention center in Detroit,
Michigan; the court is unaware of a “TCF Center” in Wisconsin.
1

7
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
27 of 66 Document
Page 7 of 45
86
2186 Case

No. 1. The relief described in the proposed order was almost identical to the
relief requested in the complaint, with a notable exception. Instead of the
request for an order requiring production of forty-eight hours of security
camera footage from the TCF Center, the plaintiffs asked for an order
prohibiting “any wiping or alteration of data or other records or materials” from
voting machines, tabulations machines, servers, software and printers, and
any alteration or destruction of ballot applications, ballot return envelopes,
ballot images, paper ballots, registration lists, poll lists or other election
materials, “across the state of Wisconsin.” Dkt. No. 6-1 at 7-8.
Two days later, plaintiff Freehan filed an amended complaint removing
Derrick Van Orden as a plaintiff. Dkt. No. 9. It differed from the original
complaint only in the removal of Van Orden as a plaintiff.
Along with the amended complaint, the plaintiff filed a motion for
temporary restraining order and preliminary injunction “to be considered in an
expedited manner.” Dkt. No. 10. The plaintiff did not file a memorandum in
support of the motion; his main purpose in filing the amended motion appears
to have been to ask the court to rule on the motion quickly. The plaintiff
attached a proposed briefing schedule, suggesting that the court should require
the defendants to respond by 8:00 p.m. on Friday, December 4, 2020 and
require him to file his reply by 8:00 p.m. on Saturday, December 5, 2020; he
proposed to submit the matter on briefs without argument. Dkt. No. 10-1. The
defendants objected to this severely truncated schedule. Dkt. Nos. 25

8
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
28 of 66 Document
Page 8 of 45
86
2187 Case

(defendant Evers), 26 (defendants Wisconsin Election Commission and its
members).
Construing the amended motion as a Civil L.R. 7(h) expedited, nondispositive motion for an expedited briefing schedule, the court granted the
request on December 4, 2020, setting a schedule that, while not as expedited
as the plaintiff requested, gave the parties a short leash. Dkt. No. 29.
Wisconsin voter James Gesbeck filed a motion to intervene, dkt. no. 14,
and later an expedited motion to intervene, dkt. no. 33. The Democratic
National Committee (DNC) also sought to intervene. Dkt. No. 22. The court
denied both requests, dkt. nos. 41 (DNC), 74 (Gesbeck), but allowed both to file
amicus curiae briefs by the December 7, 2020 deadline it had set for the
defendants to oppose the plaintiff’s motion for injunctive relief, dkt. nos. 37
(Gesbeck), 41 (DNC).
Recall that the plaintiff had not filed a memorandum in support of the
December 1, 2020 corrected motion for injunctive relief or in support of the
December 3, 2020 amended motion. On Sunday, December 6, 2020, the
plaintiff filed an amended memorandum in support of the motion. Dkt. No. 42.
In the first paragraph, the plaintiff indicated that he filed the amended
memorandum to “avoid possible confusion from removal of Mr. Van Orden is
[sic] plaintiff.” Id. at 1. He said that the memorandum was identical to the
original memorandum “except for amending references to plaintiffs to refer to
Mr. Meehan [sic] only and correcting several inadvertent references to the State
of Georgia.” Id.
9
Case2:20-cv-01771-PP
2:20-cv-01771-PP Filed
Do ument
12/10/20
83 Filed
Page12/09/20
29 of 66 Document
Page 9 of 45
86
2188 Case

On Sunday, December 6, the plaintiff also filed a motion asking the court
to schedule an evidentiary hearing “on the merits” for Wednesday, December 9,
2020 at 9:00 a.m. Dkt. No. 44. Although the plaintiff had not asked for a
hearing in any prior motion, and had represented in the amended motion that
he was submitting the matter on the briefs without argument, the plaintiff
explained that he had changed his position based on the court’s December 4,
2020 order. Id. at ¶4. The court denied the motion in a telephonic hearing on
December 8, 2020, explaining that before it could reach the merits of the
motion for injunctive relief, it must resolve issues regarding justiciability. Dkt.
Nos. 70, 71.
In opposing the plaintiff’s amended motion for injunctive relief,
defendants Wisconsin Election Commission and its members argued that the
case has jurisdictional and procedural defects that require dismissal. Dkt. No.
52 at 5. They asserted that the plaintiff lacks Article III standing, id. at 6, that
the doctrine of laches bars consideration of his claims, id. at 8 and that the
Eleventh Amendment shields them from the relief he seeks, id. at 10. They
asserted that the complaint fails to state a claim for relief under the Election or
Electors Clauses, id. at 11, or under the Equal Protection or Due Process
Clauses, id. at 13, and they contended that the plaintiff’s purported evidence
fails to meet basic evidentiary standards, id. at 20.
In his brief opposing injunctive relief, defendant Governor Evers argued
that there is no evidence of fraud in Wisconsin’s election results, dkt. no. 55 at
10, that the plaintiff’s witnesses and experts lack qualifications and are
10
Document
12/10/20
83 Filed
Page12/09/20
30 of 66 Page
Document
10 of 86
45
2189 Case 2:20-cv-01771-PP Filed

unreliable, id. at 12, and that the plaintiff has failed to state valid claims, id. at
22. Evers also argued that an adequate remedy at law exists because the
recount procedures under Wis. Stat. §9.01 unambiguously constitute the
“exclusive remedy” for challenging election results. Id. at 55. With respect to
the balancing of harms, Evers argued that the requested relief would prejudice
the defendants and “retroactively deprive millions of Wisconsin voters of their
constitutional right to vote in the 2020 presidential election.” Id. at 32.
James Gesbeck, filing as friend of the court, opposed the motion for
injunctive relief on the grounds that the plaintiff has not established subject
matter jurisdiction and that the court should defer to the Wisconsin courts and
Wisconsin’s procedural mechanism for resolving disputed elections. Dkt. No.
47 at 11, 12. Gesbeck applied the balancing analysis for injunctive relief,
asserting that relief in this court would moot the Wis. Stat. §9.01 challenge
pending in the Wisconsin courts. Id. at 17. He argued that this, in turn, would
put the “insurmountable weight of the Federal Government on the election
result in Wisconsin and would be unbalancing the scale created by the system
of checks and balances that have been maintained since the Constitution was
adopted.” Id. at 17.
Amicus DNC opposed the motion on many of the same grounds as the
other defendants. Dkt. No. 57. The DNC argued that the plaintiff lacks
standing, that the doctrine of laches bars the plaintiff’s claims, that the
defendants are immune from suit under the Eleventh Amendment, that
principles of federalism and comity require abstention, and that the plaintiff
11
Document
12/10/20
83 Filed
Page12/09/20
31 of 66 Page
Document
11 of 86
45
2190 Case 2:20-cv-01771-PP Filed

fails to state a claim upon which relief can be granted. Dkt. No. 57. It asserted
that the plaintiff cannot establish irreparable harm and has an adequate
remedy of law. Id. at 36.
The defendants have filed motions to dismiss the case. The WEC and its
members seek dismissal for failure to state a claim under Federal Rule of Civil
Procedure 12(b)(6). Dkt. No. 53. Defendant Evers seeks dismissal for lack of
subject matter jurisdiction under Fed. R. Civ. P. 12(b)(1), failure to plead fraud
with particularity under Fed. R. Civ. P. 9(b) and failure to state a claim under
Fed. R. Civ. P. 12(b)(6).
The Wisconsin State Conference of the NAACP and three of its members
(Dorothy Harrell, Wendell J. Harris, Jr. and Earnestine Moss) sought leave to
file an amicus brief on the question of whether the court should dismiss the
case. Dkt. No. 56. The court granted that motion. Dkt. No. 69.
III.

Procedural Posture
From the outset, the plaintiff has sought to have the claims in the

complaint resolved through a motion for injunctive relief under Fed. R. Civ. P.
65. The relief he requests in the second iteration of his motion for injunctive
relief is the same relief he requests in the lawsuit itself. As defendant Evers
points out in his motion to dismiss, the plaintiff’s December 6, 2020 motion for
an evidentiary hearing (which the court has denied) “makes clear that what
[the plaintiff] seeks—without any discovery or basic adversarial development of
evidence—is a trial and final adjudication on the merits.” Dkt. No. 51 at 2.

12
Document
12/10/20
83 Filed
Page12/09/20
32 of 66 Page
Document
12 of 86
45
2191 Case 2:20-cv-01771-PP Filed

Evers points to Fed. R. Civ. P. 12(i), which states that “[i]f a party so
moves, any defense listed in Rule 12(b)(1)-(7)—whether made in a pleading or
by motion—and a motion under Rule 12(c) must be heard and decided before
trial unless the court orders a deferral until trial.” Because Evers has raised
defenses under Rule 12(b)(1) and (b)(6), and because in asking for a hearing the
plaintiff sought what would have been a trial on the merits of the causes of
action raised in the complaint, the court must resolve the defenses before
moving to the merits.
As the court stated in the hearing on December 8, that requirement is
more than a procedural nicety. The defendants and the amici have raised
questions about this federal court’s authority to decide the claims alleged in
the amended complaint. If this court does not have jurisdiction to hear and
decide those claims, any decision it might make regarding the merits of the
claims would be invalid. For that reason, the court considers the motions to
dismiss before considering the plaintiff’s request for injunctive relief.
IV.

The Motions to Dismiss
A.

Legal Standards
1.

Rule 12(b)(1)—Lack of Subject Matter Jurisdiction

In evaluating a motion to dismiss for lack of subject matter jurisdiction
under Fed. R. Civ. P. 12(b)(1), “the court must first determine whether a factual
or facial challenge has been raised.” Silha v. ACT, Inc., 807 F.3d 169, 173 (7th
Cir. 2015) (citing Apex Dig., Inc. v. Sears, Roebuck & Co., 572 F.3d 440, 443
(7th Cir. 2009). A factual challenge alleges that even if the pleadings are
13
Document
12/10/20
83 Filed
Page12/09/20
33 of 66 Page
Document
13 of 86
45
2192 Case 2:20-cv-01771-PP Filed

sufficient, no subject matter jurisdiction exists. A facial challenge alleges that
the complaint is deficient—that the plaintiff has not sufficiently alleged subject
matter jurisdiction. Id. The difference matters—a court reviewing a factual
challenge “may look beyond the pleadings and view any evidence submitted to
determine if subject matter exists,” while a court reviewing a facial challenge
“must accept all well-pleaded factual allegations as true and draw all
reasonable inferences in favor of the plaintiff.” Id.
2.

Rule 12(b)(6)—Failure to State a Claim

A motion to dismiss for failure to state a claim under Rule 12(b)(6)
challenges the legal sufficiency of the complaint. A complaint must include “a
short and plain statement of the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2). The complaint must contain enough facts,
accepted as true, to “state a claim for relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows a court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Id. (citing
Twombly, 550 U.S. at 556). “[T]he plausibility determination is a contextspecific task that requires the reviewing court to draw on its judicial experience
and common sense.” W. Bend Mut. Ins. Co. v. Schumacher, 844 F.3d 670, 676
(7th Cir. 2016).

14
Document
12/10/20
83 Filed
Page12/09/20
34 of 66 Page
Document
14 of 86
45
2193 Case 2:20-cv-01771-PP Filed

3.

42 U.S.C. §1983

To state a claim for a civil rights violation under 42 U.S.C. §1983, a
plaintiff must allege that someone deprived him of a right secured by the
Constitution or the laws of the United States and that whoever deprived him of
that right was acting under the color of state law. D.S. v. E. Porter Cty. Sch.
Corp., 799 F.3d 793, 798 (7th Cir. 2015) (citing Buchanan–Moore v. Cty. of
Milwaukee, 570 F.3d 824, 827 (7th Cir. 2009)).
B.

Subject Matter Jurisdiction

“Federal courts are courts of limited jurisdiction.” Kokkonen v. Guardian
Life Ins. Co. of America, 511 U.S. 375, 377 (1994). Subject matter jurisdiction
has to do with “the courts’ statutory or constitutional power to adjudicate the
case.” Steel Co. v. Citizens for a Better Environment, 523 U.S. 83, 89 (1998)
(emphasis in the original). “Article III, §2, of the Constitution extends the
‘judicial Power’ of the United States only to ‘Cases’ and ‘Controversies.’” Id. at
102. The defendants raise a factual challenge to the court’s subject matter
jurisdiction, arguing that regardless of the pleadings, subject matter
jurisdiction does not exist. The court may look outside the four corners of the
complaint in considering that challenge.
1.

Standing

Article III standing is an “essential component of Article III's case-orcontroversy requirement,” and therefore a “threshold jurisdictional question.”
Apex Dig., Inc., 572 F.3d at 443 (citing Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992)). “[N]o principle is more fundamental to the judiciary’s proper
15
Document
12/10/20
83 Filed
Page12/09/20
35 of 66 Page
Document
15 of 86
45
2194 Case 2:20-cv-01771-PP Filed

role in our system of government than the constitutional limitation of federalcourt jurisdiction to actual cases or controversies.” Raines v. Byrd, 521 U.S.
811, 818 (1997). “Standing to sue is part of the common understanding of what
it takes to make a justiciable case.” Id. “Standing is an element of subjectmatter jurisdiction in a federal civil action . . . .” Moore v. Wells Fargo Bank,
N.A., 908 F.3d 1050, 1057 (7th Cir. 2018).
The “irreducible constitutional minimum of standing contains three
requirements. Lujan v. Defenders of Wildlife, [504 U.S. 555], at 560
[1992)]. First and foremost, there must be (and ultimately proved)
an “injury in fact”—a harm suffered by the plaintiff that is “concrete”
and “actual or imminent, not ‘conjectural’ or ‘hypothetical.’”
Whitmore v. Arkansas, [495 U.S. 149], at 149 [1990] (quoting Los
Angeles v. Lyons, 461 U.S. 95, 101-102 . . . (1983)). Second, there
must be causation—a fairly traceable connection between the
plaintiff’s injury and the complained-of conduct of the defendant.
Simon v. Eastern Ky. Welfare Rights Organization, 426 U.S. 26, 4142 . . . (1976). And third, there must be redressability—a likelihood
that the requested relief will redress the alleged injury. Id., at 45-46
. . .; see also Warth v. Seldin, 422 U.S. 490, 505 . . . (1975). This
triad of injury in fact, causation, and redressability constitutes the
core of Article III’s case-or-controversy requirement, and the party
invoking federal jurisdiction bears the burden of establishing its
existence. See FW/PBS, Inc. v. Dallas, 493 U.S. 215, 231 . . . (1990).
Steel Co., 523 U.S. at 102-104.
Regarding the “injury in fact” leg of the triad, the injury must be
“particularized,” such that it “affect[s] the plaintiff in a personal and individual
way.” Spokeo, Inc. v. Robins, ___ U.S. ___, 136 S. Ct. 1540, 1548 (2016)
(citations omitted). The injury also must be “concrete”—it must be “real,” not
“abstract.” Id. A plaintiff cannot show a particularized and concrete injury by
showing “that he has merely a general interest common to all members of the
public.” Ex parte Levitt, 302 U.S. 633, 634 (1937). A plaintiff may not use a
16
Document
12/10/20
83 Filed
Page12/09/20
36 of 66 Page
Document
16 of 86
45
2195 Case 2:20-cv-01771-PP Filed

“federal court as a forum in which to air his generalized grievances about the
conduct of government . . . .” United States v. Richardson, 418 U.S. 166, 174
(1974) (quoting Flast v. Cohen, 392 U.S. 83, 106 (1942)).
As for the redressability leg of the triad, “[r]elief that does not remedy the
injury suffered cannot bootstrap a plaintiff into federal court; that is the very
essence of the redressability requirement.” Steel Co., 523 U.S. at 107. The
plaintiff must show that it is “likely,” not merely “speculative,” that the injury
the plaintiff alleges will be “redressed by a favorable decision.” Lujan, 504 U.S.
at 561 (quoting Simon, 426 U.S. at 38).
In addition to the Article III case-or-controversy requirement, there is a
prudential limitation in Fed. R. Civ. P. 17(a), requiring that “[e]very action must
be prosecuted in the name of the real party in interest,” Fed. R. Civ. P. 17(a),
and “requir[ing] that the complaint be brought in the name of the party to
whom that claim ‘belongs’ or the party who ‘according to the governing
substantive law, is entitled to enforce the right.’” Rawoof v. Texor Petroleum
Co., Inc., 521 F.3d 750, 756 (7th Cir. 2008) (quoting Oscar Gruss & Son, Inc.
v. Hollander, 337 F.3d 186, 193 (2d Cir. 2003)); see also RK Co. v. See, 622
F.3d 846, 850 (7th Cir. 2010) (“the real party in interest rule is only concerned
with whether an action can be maintained in the plaintiff's name,” and is
“similar to, but distinct from, constitutional ... standing”). The real party in
interest is “the one who by the substantive law, possesses the right sought to
be enforced, and not necessarily the person who will ultimately benefit from the
recovery.” Act II Jewelry, LLC v. Wooten, 301 F. Supp. 3d 905, 910-911 (N.D.
17
Document
12/10/20
83 Filed
Page12/09/20
37 of 66 Page
Document
17 of 86
45
2196 Case 2:20-cv-01771-PP Filed

Ill. 2018) (quoting Checkers, Simon & Rosner v. Lurie Corp., 864 F.2d 1338,
1343 (7th Cir. 1988) (internal citations omitted)). The purpose of the rule is to
“protect the defendant against a subsequent action by the party actually
entitled to recover.” RK Co., 622 F.3d at 850 (citing Fed. R. Civ. P. 17(a)
advisory committee note (2009)).
The amended complaint alleges that the plaintiff has standing “as a voter
and as a candidate for the office of Elector under Wis. Stat. §§ 5.10, et seq
(election procedures for Wisconsin electors).” Dkt. No. 9 at 8. The defendants
argue that the plaintiff lacks standing in either capacity. Dkt. No. 43 at 4-5;
Dkt. No. 59 at 8-9.
a.

Standing as a voter

The amended complaint does not assert that the plaintiff voted in the
2020 general Presidential election in Wisconsin. It says that he is a registered
voter, but it does not affirmatively state that he voted in the election the results
of which he asks the court to decertify. His counsel asserts in the brief in
opposition to the defendants’ motion to dismiss—filed eight days after the
original complaint and five days after the amended complaint—that the plaintiff
“voted for President Trump in the 2020 General Election.” Dkt. No. 72 at 17.
For the first time at the motion to dismiss stage, the plaintiff provided his own
declaration, in which he attests that he voted for President Donald J. Trump in
the November 3, 2020 election. Dkt. No. 72-1.
The plaintiff claims that the defendants failed to comply “with the
requirements of the Wisconsin Election Code and thereby diluted the lawful
18
Document
12/10/20
83 Filed
Page12/09/20
38 of 66 Page
Document
18 of 86
45
2197 Case 2:20-cv-01771-PP Filed

ballots of the Plaintiff and of other Wisconsin voters and electors in violation of
the United States Constitution guarantee of Equal Protection.” Dkt. No. 9 at
¶116. He alleges that the defendants enacted regulations or issued guidance
that, in intent and effect, favored Democratic absentee voters over Republican
voters, and that these regulations and this guidance enable and facilitated
voter fraud. Id. The plaintiff also asserts that he has a right to have his vote
count and claims that a voter is injured if “the important of his vote is
nullified.” Id. at ¶127.
Several lower courts have addressed the plaintiff’s theory that a single
voter has standing to sue as a result of his vote being diluted by the possibility
of unlawful or invalid ballots being counted. The district court for the Middle
District of North Carolina catalogued a few of those decisions, all finding that
the harm was too speculative and generalized—not sufficiently “concrete”—to
bestow standing. These courts concluded that the vote dilution argument fell
into the “generalized grievance” category. In Moore v. Circosta, the court wrote:
Indeed, lower courts which have addressed standing in vote dilution
cases arising out of the possibility of unlawful or invalid ballots
being counted, as Plaintiffs have argued here, have said that this
harm is unduly speculative and impermissibly generalized because
all voters in a state are affected, rather than a small group of voters.
See, e.g., Donald Trump for President, Inc. v. Cegavske, Case No.
2:20-CV-1445 JCM (VCF), __ F. Supp. 3d __, __, 2020 WL 5626974,
at *4 (D. Nev. Sept. 18, 2020) (“As with other generally available
grievances about the government, plaintiffs seek relief on behalf of
their member voters that no more tangibly benefits them than it does
the public at large.”) (internal quotations and modifications omitted);
Martel v. Condos, Case No. 5:20-cv-131, ___ F. Supp. 3d ___, ___,
2020 WL 5755289, at *4 (D. Vt. Sept. 16, 2020) (“If every voter
suffers the same incremental dilution of the franchise caused by
some third-party’s fraudulent vote, then these voters have
experienced a generalized injury.”); Paher v. Cegavske, 457 F. Supp.
19
Document
12/10/20
83 Filed
Page12/09/20
39 of 66 Page
Document
19 of 86
45
2198 Case 2:20-cv-01771-PP Filed

3d 919, 926-27 (D. Nev. 2020) (“Plaintiffs’ purported injury of having
their votes diluted due to ostensible election fraud may be
conceivably raised by any Nevada voter.”); Am. Civil Rights Union v.
Martinez-Rivera, 166 F. Supp. 3d 779, 789 (W.D. Tex. 2015) (“[T]he
risk of vote dilution [is] speculative and, as such, [is] more akin to a
generalized grievance about the government than an injury in fact.”)
Although “[i]t would over-simplify the standing analysis to conclude
that no state-wide election law is subject to challenge simply
because affects all voters,” Martel, __ F. Supp.3d at __, 2020 WL
5755289, at *4, the notion that a single person’s vote will be less
valuable as a result of unlawful or invalid ballots being cast is not a
concrete and particularized injury necessary for Article III standing.
Compared to a claim of gerrymandering, in which the injury is
specific to a group of voters based on their racial identity or the
district in which they live, all voters in North Carolina, not just
Individual Plaintiffs, would suffer the injury Individual Plaintiffs
allege. This court finds this injury to generalized to give rise to a
claim of vote dilution . . . .
Moore v. Circosta, Nos. 1:20CV911, 1:20CV912, 2020 WL 6063332, at *14,
The court agrees. The plaintiff’s alleged injuries are injuries that any
Wisconsin voter suffers if the Wisconsin election process were, as the plaintiff
alleges, “so riddled with fraud, illegality, and statistical impossibility that this
Court, and Wisconsin’s voters, courts, and legislators, cannot rely on, or
certify, any numbers resulting from this election.” Dkt. No. 9 at ¶5. The
plaintiff has not alleged that, as a voter, he has suffered a particularized,
concrete injury sufficient to confer standing.
The plaintiff argues that it is incorrect to say that his standing is based
on a theory of vote dilution. Dkt. No. 72 at 19. He then proceeds to opine that
he has shown in great detail how his vote and the votes of others who voted for
Republican candidates was diluted. Id. at 19-20. He says the vote dilution did
not affect all Wisconsin voters equally, asserting that it had a negative impact
20
Document
12/10/20
83 Filed
Page12/09/20
40 of 66 Page
Document
20 of 86
45
2199 Case 2:20-cv-01771-PP Filed

on those who voted for Republican candidates and a positive impact on those
who voted for Democratic candidates. Id. at 20. He asserts that he also has
shown that the defendants sought to actively disenfranchise voters for
Republican candidates. Id. These are the same arguments he made in the
amended complaint and they still show no more than a generalized grievance
common to any voter. Donald J. Trump carried some Wisconsin counties; the
voters who voted for Joseph R. Biden in those counties could make the same
complaints the plaintiff makes here.
The plaintiff says that his interests and injury are “identical to that of
President Trump,” and cites to Bush v. Gore, 531 U.S. 98 (2000), which he
characterizes as holding that “then-candidate George W. Bush of Texas had
standing to raise the equal protection rights of Florida voters that a majority of
the Supreme Court deemed decisive.” Id. at 21 (quoting Hawkins v. Wayne
Twp. Bd. of Marion Cty., Ind, 183 F. Supp. 2d 1099, 1103 (S.D. Ind. 2002)).
The court is stymied by the plaintiff’s assertion that his interests and injury are
identical to that of President Trump. As the court will explain in the next
section, contrary to his assertions, the plaintiff is not a “candidate” in the way
that President Trump was a candidate for office. President Trump’s interest is
in being re-elected, while the plaintiff has said that his interest is in having his
vote count and not be diluted. If his interest is solely in getting President
Trump re-elected, as opposed to having his vote be counted as part of a valid
election process, the court is aware of no constitutional provision that gives
him the right to have his candidate of choice declared the victor.
21
Document
12/10/20
83 Filed
Page12/09/20
41 of 66 Page
Document
21 of 86
45
2200 Case 2:20-cv-01771-PP Filed

Nor does the decision in Bush v. Gore say what the plaintiff claims it
says. As far as the court can tell, the word “standing” does not appear in the
majority opinion. In the Indiana decision the plaintiff cites, then-district court
judge David Hamilton wrote: “If candidate Hawkins did not have standing to
raise equal protection rights of voters, it would be difficult to see how thencandidate George W. Bush of Texas had standing to raise equal protection
rights of Florida voters . . . in Bush v. Gore.” Hawkins, 183 F. Supp.2d at 1103.
But the Supreme Court in Bush v. Gore never explained how candidate Bush
had standing, and even if it had, the plaintiff is not a candidate.
Nor has the plaintiff demonstrated redressability. He complains that his
vote was diluted and that he wants his vote to count. But he asks the court to
order the results of the election de-certified and then to order defendant Evers
to certify the election for Donald J. Trump. Even if this federal court had the
authority to order the governor of the state of Wisconsin to certify the results of
a national presidential election for any candidate—and the plaintiff has
presented no case, statute or constitutional provision providing the court with
that authority—doing so would further invalidate and nullify the plaintiff’s vote.
The plaintiff wants Donald J. Trump to be certified as the winner of the
Wisconsin election as a result of the plaintiff’s vote. But what he asks is for
Donald J. Trump to be certified the winner as a result of judicial fiat. That
remedy does not redress the plaintiff’s alleged injury. Even the plaintiff
concedes in his brief in opposition to dismissal that “[d]efendant Evers can . . .
provide partial redress in terms of the requested injunctive relief, namely, by
22
Document
12/10/20
83 Filed
Page12/09/20
42 of 66 Page
Document
22 of 86
45
2201 Case 2:20-cv-01771-PP Filed

refusing to certify or transmit the election results, and providing access to
voting machines, records and other ‘election materials.’” Dkt. No. 72 at 21. The
plaintiff is wrong in that regard, as the court will explain when it discusses the
related doctrine of mootness; the point is that even from the plaintiff’s
perspective, the remedy he seeks will not fully redress the injury he claims.
Circling back to Article III’s “case or controversy” requirement, the
Supreme Court has held that “[t]he remedy must of course be limited to the
inadequacy that produced the injury in fact that the plaintiff has established.”
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 353 (2006) (quoting Lewis v.
Casey, 518 U.S. 343, 357 (1996)). In other words, “[a] plaintiff’s remedy must
be tailored to redress the plaintiff’s particular injury.” Gill v. Whitford, ___ U.S.
___, 138 S. Ct. 1916, 1934 (2018) (citing Cuno, 547 U.S. at 353). Even if the
plaintiff had alleged a particularized, concrete injury and even if the relief he
seeks would redress that injury, that relief is not tailored to the alleged injury.
As the Michigan court explained in King v. Whitmer, Case No. 20-13134 at Dkt.
No. 62, page 25 (E.D. Mich. Dec. 7, 2020), “Plaintiffs’ alleged injury does not
entitle them to seek their requested remedy because the harm of having one’s
vote invalidated or diluted is not remedied by denying millions of others their
right to vote.”
The plaintiff’s status as a registered voter does not give him standing to
sue.

23
Document
12/10/20
83 Filed
Page12/09/20
43 of 66 Page
Document
23 of 86
45
2202 Case 2:20-cv-01771-PP Filed

b.

Standing as a nominee for elector

The amended complaint alleges that the plaintiff has standing to bring
the suit “as a candidate for the office of Elector under Wis. Stat. §§ 5.10, et
seq.” Dkt. No. 9 at ¶26. The amended complaint cites to “Wis. Stat. §§5.10, et
seq,” but the court is not sure what the “et seq.”—“and what follows”—
contributes to the plaintiff’s belief that he has standing. Wis. Stat. §5.10 is
followed by Wis. Stat. §5.15, which concerns the “Division of municipalities
into wards,” as well as other sections concerning polling places and voting
machines. The court assumes the plaintiff meant to reference only Wis. Stat.
§5.10.
Wis. Stat. §5.10 states:
Although the names of the electors do not appear on the ballot and
no reference is made to them, a vote for the president and vice
president named on the ballot is a vote for the electors of the
candidates for whom an elector’s vote is cast. Under chs. 5 to 12, all
references to the presidential election, the casting of votes and the
canvassing of votes for president, or for president and vice president,
mean votes for them through their pledged presidential electors.
Relying on this section, the amended complaint directs the court’s
attention to Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020).2 In Carson,
The complaint also cites two Supreme Court cases: McPherson v. Blacker,
146 U.S. 1, 27 (1892) and Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S.
70, 76 (2000) (per curiam). Neither address the Article III standing of an elector.
In McPherson, the Court reviewed the Michigan supreme court’s decision on
the constitutionality of the Michigan statute governing selection of electors.
While the parties who brought the suit in state court were nominees for
presidential electors, the Court did not address their standing (or lack of it).
The petitioner in Bush was the then-Republican candidate, George W. Bush,
who was challenging the Florida supreme court’s interpretation of its election
statutes; again, the Court did not address (and had no need to address) the
standing of an elector to sue.
2

24
Document
12/10/20
83 Filed
Page12/09/20
44 of 66 Page
Document
24 of 86
45
2203 Case 2:20-cv-01771-PP Filed

two certified nominees of the Republican Party to be presidential electors sued
the Minnesota secretary of state, challenging a consent decree that “essentially
ma[de] the statutorily-mandated absentee ballot receipt deadline inoperative.”
Id. at 1054. As a result of the decree, the secretary of state had directed
election officials “to count absentee ballots received up to a week after election
day, notwithstanding Minnesota law.” Id. The potential electors sought an
injunction in federal court, but the district court found they lacked standing.
Id.
The Eighth Circuit reversed, finding that the potential electors had
standing as candidates “because the plain text of Minnesota law treats
prospective presidential electors as candidates.” Id. at 1057. The court found
that candidates suffered particularized and concrete injury from an inaccurate
vote tally. Id. at 1058.
The plaintiff urges this court to reach the same conclusion. An Eighth
Circuit decision is not binding on this court, but the question is whether the
reasoning in that decision is persuasive. A member of the panel in Carson
dissented from the majority opinion and expressed doubt about the potential
electors’ standing. Circuit Judge Jane Kelley wrote:
. . . I am not convinced the Electors have Article III standing to assert
claims under the Electors Clause. Although Minnesota law at times
refers to them as “candidates,” see, e.g., Minn. Stat. § 204B.03
(2020), the Electors are not candidates for public office as that term
is commonly understood. Whether they ultimately assume the office
of elector depends entirely on the outcome of the state popular vote
for president. Id. § 208.04 subdiv. 1 (“[A] vote cast for the party
candidates for president and vice president shall be deemed a vote

25
Document
12/10/20
83 Filed
Page12/09/20
45 of 66 Page
Document
25 of 86
45
2204 Case 2:20-cv-01771-PP Filed

for that party’s electors.”) They are not presented to and chosen by
the voting public for their office, but instead automatically assume
that office based on the public’s selection of entirely different
individuals. But even if we nonetheless assume the Electors should
be treated like traditional political candidates for standing purposes,
I question whether these particular candidates have demonstrated
the “concrete and particularized” injury necessary for Article III
standing. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 . . . (1992).
To the contrary, their claimed injury—a potentially “inaccurate vote
tally” . . .—appears to be “precisely the kind of undifferentiated,
generalized grievance about the conduct of government: that the
Supreme Court has long considered inadequate for standing. Lance
v. Coffman, 549 U.S. 437, 442 . . . (2007) (examining standing in the
context of a claim under the Elections Clause). Because the Electors,
should they in fact assume that office, must swear an oath to mark
their Electoral College ballots for the presidential candidate who won
the popular vote, Minn. Stat. § 208.43 (2015), it is difficult to discern
how they have more of a “particularized stake,” Lance, 549 U.S. at
442 . . . , in Minnesota conducting fair and transparent elections
than do the rest of the state’s voters.
Id. at 1063.
Judge Kelly’s reasoning is the more persuasive. Under Wisconsin law, a
vote for the candidates of president and vice president is a vote for the electors
of those candidates. Wis. Stat. § 5.65(3)(a). When the electors meet, they must
vote for the candidates of the party that nominated the electors. Wis. Stat.
§7.75(2). Like Minnesota electors, Wisconsin electors may be referred to as
“candidates” by statute but they are not traditional political candidates
presented to and chosen by the voting public. Their interest in seeing that
every valid vote is correctly counted and that no vote is diluted is no different
than that of an ordinary voter. And the court has concluded, as did Judge
Kelly, that the plaintiff’s status as a voter does not give him standing.
The amended complaint does not mention the Elections Clause or the
Electors Clause of the Constitution in relation to standing. In his brief in
26
Document
12/10/20
83 Filed
Page12/09/20
46 of 66 Page
Document
26 of 86
45
2205 Case 2:20-cv-01771-PP Filed

opposition to the motions to dismiss, the plaintiff alleges that he has standing
under “Electors and Elections Clause.” Dkt. No. 72 at 17. He asserts that the
Eighth Circuit found in Carson that electors had “both Article III and
Prudential standing under the Electors and Elections Clauses.” Id. The plaintiff
reads Carson differently than does this court. The Carson majority did not
mention the Electors or Elections Clause in its discussion of Article III
standing. The entire discussion of Article III standing was based on Minnesota
law. See Carson, 978 F.3d at 1-57-1058. In its discussion of prudential
standing, the Carson majority stated that “[a]lthough the Minnesota Legislature
may have been harmed by the Secretary’s usurpation of its constitutional right
under the Elector Clause, the Electors have been as well.” Id. at 1058-59.
This court has found that the plaintiff does not have Article III standing,
but even if had not, it disagrees that the Elector Clause3 provides prudential
standing to electors. Article II, Section 1, Clause 2 of the Constitution—known
as the “Elector Clause”—states that “[e]ach State shall appoint, in such Manner
as the Legislature thereof may direct, a Number of Electors, equal to the whole
Number of Senators and Representatives to which the State may be entitled in
the Congress: but no Senator or Representative, or Person holding an Office of
The plaintiff cites the “Elector and Elections Clause” or “Clauses” in the same
breath but does not discuss the text of either. It is not clear how the plaintiff
sees the Elections Clause—Article II, Sec. 1, cl. 3—as providing him with
standing and the plaintiff has not developed that argument. The court notes
only that in Lance v. Coffman, the Supreme Court found that plaintiffs whose
only alleged injury was that the Elections Clause had not been followed did not
have standing because they alleged “precisely the kind of undifferentiated,
generalized grievance about the conduct of government that we have refused to
countenance in the past.” Lance, 549 U.S. at 442.
3

27
Document
12/10/20
83 Filed
Page12/09/20
47 of 66 Page
Document
27 of 86
45
2206 Case 2:20-cv-01771-PP Filed

Trust or Profit under the United States, shall be appointed an Elector.” The
clause confers on the state the right to appoint electors and confers on the
legislature the right to decide the way those electors will be appointed. It
confers no right on the electors themselves. Just a few months ago, the
Supreme Court stated as much in Chiafalo v. Washington, ___ U.S. ___, 140 S.
Ct. 2316, 2328 (July 6, 2020), in the context of considering whether a state
could penalize an elector for breaking his pledge and voting for someone other
than the candidate who won his state’s popular vote:4 “Article II and the
Twelfth Amendment give States broad powers over electors, and give electors
themselves no rights.” The Court went on to say,
Early in our history, States decided to tie electors to the presidential
choices of others, whether legislatures or citizens. Except that
legislatures no longer play a role, that practice has continued for
more than 200 years. Among the devices States have long used are
pledge laws, designed to impress on electors their role as agents of
others. A State follows in the same tradition if, like [the state of]
Washington, it chooses to sanction an elector for breaching his
promise. Then, too, the State instructs its electors that they have no
ground for reversing the vote of millions of its citizens. That direction
accords with the Constitution—as well as with the trust of a Nation
that here, We the People rule.
Id.
The plaintiff’s status as a nominee to be a Republican elector does not
give him Article III or prudential standing.

Wisconsin’s “pledge law”—Wis. Stat. §7.75(1)—does not impose a penalty on a
“faithless elector.”
4

28
Document
12/10/20
83 Filed
Page12/09/20
48 of 66 Page
Document
28 of 86
45
2207 Case 2:20-cv-01771-PP Filed

2.

Mootness

Mootness “has sometimes been called ‘the doctrine of standing set in a
time frame.’” Chi. Joe’s Tea Room, LLC v. Vill. of Broadview, 894 F.3d 807,
812-13 (7th Cir. 2018) (quoting Friends of the Earth, Inc. v. Laidlaw Envtl.
Services (TOC), Inc., 528 U.S. 167, 189 (2000)). A case becomes moot “‘when
the issues presented are no longer “live” or the parties lack a legally cognizable
interest in the outcome.’” Already, LLC v. Nike, Inc., 568 U.S. 85, 91 (2013)
(quoting Murphy v. Hunt, 455 U.S. 478, 481 (1982) (per curiam)). “Mootness
strips a federal court of subject-matter jurisdiction.” Id. at 815 (citing DJL
Farm LLC v. EPA, 813 F.3d 1048, 1050 (7th Cir. 2016). This is because “[a]
case that becomes moot at any point during the proceedings is ‘no longer a
“Case” or “Controversy” for purposes of Article III.’” United States v. SanchezGomez, __ U.S. __, 138 S. Ct. 1532, 1537 (2018) (quoting Already, LLC, 568
U.S. at 91).
The amended complaint states that the plaintiff brought this suit “to
prohibit certification of the election results for the Office of President of the
United States in the State of Wisconsin . . . .” Dkt. No. 9 at ¶27. The plaintiff
asks the court to prohibit from occurring an event that already has occurred—
an event that occurred the day before he filed this lawsuit and nine days before
the court issues this order. He asks the court to enjoin defendant Evers from
transmitting the certified election results, id. at ¶142—an event that already
has occurred. He asks the court to order that certain votes not be counted, id.,
when the vote counting has been over since November 29.
29
Document
12/10/20
83 Filed
Page12/09/20
49 of 66 Page
Document
29 of 86
45
2208 Case 2:20-cv-01771-PP Filed

The plaintiff himself demonstrates the mootness problem in his brief in
opposition to dismissal. He states that defendant Evers can provide partial
redress for his alleged injuries “by refusing to certify or transmit the election
results.” Dkt. No. 72 at 21. But Evers already has certified and transmitted the
elections results—he cannot refuse to do that which he already has done.
At the December 8 hearing, the plaintiff argued that there remains a live
controversy because the electors have not yet voted and will not do so until
Monday, December 14, 2020. Dkt. No. 70. This argument ignores the fact that
several of the events that dictate which slate of nominees are certified to vote
already have taken place and had taken place at the time the plaintiff filed his
complaint. The votes have been counted. In two counties, they’ve been counted
twice. The WEC chair has signed the canvass and certified electors for
Biden/Harris. The governor has signed the Certificate of Ascertainment and the
National Archive has that certificate.
In his brief in opposition to dismissal, the plaintiff points to this court’s
own order earlier in this case, determining that the plaintiff had not
demonstrated why the December 8, 2020 “safe harbor” deadline under 3 U.S.C.
§5 was the date by which the plaintiff needed the court to issue a decision to
preserve his rights. Dkt. No. 72 at 25 (citing Dkt. No. 29 at 7). The court noted
in that order that the plaintiff’s brief in opposition to a motion to reassign
another case erroneously referred to December 8 as the date that the College of
Electors was scheduled to meet. Dkt. No. 29 at 7. The court pointed out that
that was incorrect, and that December 8 was the deadline by which the state
30
Document
12/10/20
83 Filed
Page12/09/20
50 of 66 Page
Document
30 of 86
45
2209 Case 2:20-cv-01771-PP Filed

would have to make its final determination of any election dispute in order to
avoid congressional challenge. Id. The court then said, “Because the electors do
not meet and vote until December 14, 2020, the court will impose a less
truncated briefing schedule than the one the plaintiff proposes . . . .” Dkt. No.
29.
The plaintiff says that “[i]mplicit in this Court’s determination” is the
assumption that “this Court can still grant some or perhaps all of the relief
requested and this Plaintiff’s claims are not moot.” Dkt. No. 72 at 25. The
plaintiff reads more into the court’s language than the court intended. In the
plaintiff’s earliest pleadings—the first motion for injunctive relief, the
“corrected” motion for injunctive relief, the “amended” motion for injunctive
relief—the plaintiff failed to identify a date by which he needed the court to act.
The first time he identified such a date was in his brief in opposition to a
motion to reassign another case—and then, the reference was oblique. In his
opposition brief, the plaintiff stated, “With the College of Electors scheduled to
meet December 8, there could never be a clearer case of ‘justice delayed is
justice denied.’” Dkt. No. 18 at 1. From that, the court deduced that the
plaintiff needed the court to act by the date the College of Electors was
scheduled to meet. But the College of Electors was not scheduled to meet
December 8—it was (and is) scheduled to meet December 14. So the court set a
briefing schedule that would give the defendants a chance to respond, but
would complete briefing ahead of the event the plaintiff deemed important—the

31
Document
12/10/20
83 Filed
Page12/09/20
51 of 66 Page
Document
31 of 86
45
2210 Case 2:20-cv-01771-PP Filed

electoral meeting and vote. That was not a decision by this court—implicit or
explicit—on the mootness of the plaintiff’s claims.
The plaintiff also asserts that the “cutoff for election-related challenges,
at least in the Seventh Circuit, appears to be the date that the electors meet,
rather than the date of certification.” Dkt. No. 72 at 24. He cites Swaffer v.
Deininger, No. 08-CV-208, 2008 WL 5246167 (E.D. Wis. Dec. 17, 2008).
Swaffer is not a Seventh Circuit case, and the court is not aware of a Seventh
Circuit case that establishes a “cutoff for election-related challenges.” And the
plaintiff seems to have made up the “quote” in his brief that purports to be
from Swaffer. The plaintiff asserts that these words appear on page 4 of the
Swaffer decision: “even though the election has passed, the meeting of electors
obviously has not, so plaintiff’s claim here is hardly moot.” Dkt. No. 72 at 2425. The court has read page 4 of Swaffer—a decision by this court’s colleague,
Judge J.P. Stadtmueller—three times and cannot find these words. In fact,
Swaffer did not involve a challenge to a presidential election and it did not
involve electors. Mr. Swaffer sought to challenge a Wisconsin statute requiring
individuals or groups promoting or opposing a referendum to file a registration
statement and take other actions. Swaffer, 2008 WL 5246167, at *1. The
defendants argued that the election (in which the plaintiff had taken steps to
oppose a referendum on whether to allow liquor sales in the Town of
Whitewater) was over and that Swaffer’s claims thus were moot. Id. at 2. Judge
Stadtmueller disagreed, finding that because Swaffer alleged that he intended

32
Document
12/10/20
83 Filed
Page12/09/20
52 of 66 Page
Document
32 of 86
45
2211 Case 2:20-cv-01771-PP Filed

to violate the statutes at issue in the future, a credible threat of prosecution
remained. Id. at 3.
Some of the relief the plaintiff requests may not be moot. For example, he
asks for an immediate order seizing voting machines, ballots and other
materials relating to the physical mechanisms of voting. And there remain five
days until the electors vote—as the events of this year have shown, anything
can happen. But most of the relief the plaintiff seeks is beyond this court’s
ability to redress absent the mythical time machine.
3.

Conclusion

The plaintiff does not have Article III standing to sue in federal court for
the relief he seeks.
C.

Other Arguments

Standing is the sine qua non of subject matter jurisdiction. Absent
standing, the court does not have jurisdiction to consider the plaintiff’s claims
on the merits. Arguably, it has no jurisdiction to consider the other bases the
defendants and amici assert for why the court should dismiss the case. At the
risk of producing dicta (and spilling even more ink on a topic that has received
an ocean’s worth by now), the court will briefly address some of the other bases
for the sake of completeness.
1.

Eleventh Amendment Immunity

The defendants argue that the plaintiff’s claims are barred by the
Eleventh Amendment. Dkt. No. 59 at 15; Dkt. No. 54 at 10. The Eleventh
Amendment “bars most claims in federal court against a state that does not
33
Document
12/10/20
83 Filed
Page12/09/20
53 of 66 Page
Document
33 of 86
45
2212 Case 2:20-cv-01771-PP Filed

consent to suit.” Carmody v. Bd. of Trs. of Univ. of Ill., 893 F.3d 397, 403 (7th
Cir. 2018) (citations omitted). States are immune from suit in federal court
“unless the State consents to the suit or Congress has abrogated their
immunity.” Tucker v. Williams, 682 F.3d 654, 658 (7th Cir. 2012) (citing
Seminole Tribe v. Florida, 517 U.S. 44 (1996)). This includes suits brought in
federal court against nonconsenting states by their own citizens. See, e.g.,
Edelman v. Jordan, 415 U.S. 651, 663 (1974); Hans v. Louisiana, 134 U.S. 1,
15 (1890) (“Can we suppose that, when the eleventh amendment was adopted,
it was understood to be left open for citizens of a state to sue their own state in
the federal courts, while the idea of suits by citizens of other states, or of
foreign states, was indignantly repelled?”).
The plaintiff has sued the Governor of Wisconsin, Tony Evers, in his
official capacity; the Wisconsin Elections Commission and each member of the
WEC in his or her official capacity. Before going too much further down the
Eleventh Amendment road, the court notes that the vehicle for the plaintiff to
bring his constitutional claims—his claims under the Elector Clause, the
Elections Clause, the Equal Protection Clause and the Due Process Clause—is
42 U.S.C. §1983. Section 1983 prohibits a “person” acting under color of state
law from violating another’s civil rights. The Wisconsin Elections Commission
is not a “person.” It is an arm of the state of Wisconsin, Wis. Stat. §5.05, and
“states are not suable ‘persons’ under 42 U.S.C. § 1983.” Phillips v. Baxter, 768
F. App’x 555, 559-560 (7th Cir. 2019) (citing Sebesta v. Davis, 878 F.3d 226,
231 (7th Cir. 2017)). See also, Will v. Mich. Dept. of State Police, 491 U.S. 58,
34
Document
12/10/20
83 Filed
Page12/09/20
54 of 66 Page
Document
34 of 86
45
2213 Case 2:20-cv-01771-PP Filed

64 (1989) (“a State is not a person within the meaning of § 1983”). “Section
1983 provides a federal forum to remedy many deprivations of civil liberties,
but it does not provide a federal forum for litigants who seek a remedy against
a State for alleged deprivations of civil liberties.” Will, 491 U.S. at 66. The WEC
is not the proper defendant for the plaintiff’s constitutional claims.
The plaintiff faces the same problem with his claims against the
individual defendants, all of whom are state officials whom he sues in their
official capacities.5
Obviously, state officials literally are persons. But a suit against a
state official in his or her official capacity is not a suit against the
official but rather is a suit against the official’s office. Brandon v.
Holt, 469 U.S. 464, 471 . . . (1985). As such, it is no different from a
suit against the State itself. See, e.g., Kentucky v. Graham, 473 U.S.
159, 165-66 . . . (1985); Monell [v. New York City Dept. of Social
Services, 436 U.S. 658], at 690 [(1978)].
Id. at 71. Arguably, none of the defendants are subject to suit under 42 U.S.C.
§1983, which means that even if the plaintiff had standing, the court would
have to dismiss Counts I, II and III of the amended complaint.
Circling back to the defendants’ Eleventh Amendment argument, “The
Eleventh Amendment extends to state agencies and departments and, subject
to the Ex Parte Young doctrine, to state employees acting in their official
capacities.” Nelson v. LaCrosse Cty. Dist. Atty. (State of Wis.), 301 F.3d 820,

Had the plaintiff sued the individual defendants in their personal capacities,
he could have sought relief against them under 42 U.S.C. §1983, assuming he
had standing.
5

35
Document
12/10/20
83 Filed
Page12/09/20
55 of 66 Page
Document
35 of 86
45
2214 Case 2:20-cv-01771-PP Filed

827 n.7 (7th Cir. 2002) (citing Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 123-24 (1984)).
There are three exceptions to Eleventh Amendment immunity: (1)
congressional abrogation, Nuñez v. Ind. Dep’t of Child Servs., 817 F.3d 1042,
1044 (7th Cir. 2016) (citing Alden v. Maine, 527 U.S. 706, 754-55 (1999); (2) “a
state’s waiver of immunity and consent to suit,” id. (citing College Savings
Bank v. Fla. Prepaid Postsecondary Educ. Expense Bd., 527 U.S. 666, 675
(1999)); and (3) a suit “against state officials seeking only prospective equitable
relief,” id. (citing Ex parte Young, 209 U.S. 123, 159-60 (1908)). None of the
exceptions apply here.
Congress did not abrogate the sovereign immunity of the states when it
enacted 42 U.S.C. §1983. Will, 491 U.S. at 66. Wisconsin has not waived its
immunity from civil actions under §1983. See Shelton v. Wis. Dep’t of Corr.,
376 Wis. 2d 525, *2 (Table) (Ct. App. 2017) (citing Boldt v. State, 101 Wis. 2d
566, 584-85 (1981)). And the Ex parte Young doctrine does not apply when a
plaintiff asserts a claim—regardless of the relief requested—against a state
official based on state law. Pennhurst, 465 U.S. at 106 (“A federal court’s grant
of relief against state officials on the basis of state law, whether prospective or
retroactive, does not vindicate the supreme authority of federal law. On the
contrary, it is difficult to think of a greater intrusion on state sovereignty than
when a federal court instructs state officials on how to conform their conduct
to state law.”). “In determining whether the Ex parte Young doctrine avoids an
Eleventh Amendment bar to suit, a court need only conduct a ‘straightforward
36
Document
12/10/20
83 Filed
Page12/09/20
56 of 66 Page
Document
36 of 86
45
2215 Case 2:20-cv-01771-PP Filed

inquiry’ into whether the complaint alleges an ongoing violation of federal law
and seeks relief properly characterized as prospective.” Verizon Md., Inc. v.
Pub. Serv. Comm’n of Md., 535 U.S. 635, 636 (2002) (quoting Idaho v. Coeur
d’Alene Tribe of Idaho, 521 U.S. 261, 296 (1997); McDonough Assocs., Inc. v.
Grunloh, 722 F.3d 1043, 1051 (7th Cir. 2013)).
Count IV of the amended complaint alleges “[w]ide-spread ballot fraud,” a
state-law claim. The Eleventh Amendment bars that claim against the
defendants in their official capacities. The Eleventh Amendment also bars the
plaintiff’s federal claims to the extent that the plaintiff seeks retrospective
relief. The Supreme Court has refused to extend the Ex Parte Young doctrine to
claims for retrospective relief. Green v. Mansour, 474 U.S. 64, 68 (1985) (citing
Pennhurst, 465 U.S. at 102-103). The amended complaint seeks (1) a
“temporary restraining order instructing Defendants to de-certify the results of
the General Election for the Office of President,” dkt. no. 9 at 47; (2) “an order
instructing the Defendants to certify the results of the General Election for
Office of the President in favor of President Donald Trump,” id.; (3) “a
temporary restraining order” prohibiting the tabulation of unlawful votes,” id.;
(4) an order preserving voting equipment and data, id.; (5) “the elimination of
the mail ballots from counting in the 2020 election,” id. at 48; (6) the
disqualification of Wisconsin’s electors from participating in the 2020 election,
id.; and (7) an order directing Wisconsin’s electors to vote for President Donald
Trump, id. As the court already has noted, with the possible exception of the

37
Document
12/10/20
83 Filed
Page12/09/20
57 of 66 Page
Document
37 of 86
45
2216 Case 2:20-cv-01771-PP Filed

request for an order preserving voting equipment and data, the relief the
plaintiff requests is retrospective.
The plaintiff disagrees—he characterizes the certification of the election
results as “ongoing violations of federal law . . . ongoing violations of the
Electors and Elections Clauses, the Equal Protection and Due Process Clauses,
as well as likely violations of federal law including the Voting Rights Act and
the Help America Vote Act.” Dkt. No. 72 at 25-26. The plaintiff has not brought
claims under the latter two statutes and saying that a completed event is an
ongoing violation doesn’t make it so.
2.

Exclusive Remedy/Exhaustion/Abstention

Defendant Evers moves to dismiss because Wisconsin provides a remedy
to address irregularities or defects during the voting or canvassing process:
Wis. Stat. §9.01(11). Four days ago, the Wisconsin Supreme Court held that
§9.01(6) requires that a party aggrieved after a recount must appeal by filing
suit in circuit court. Trump v. Evers, No. 2020AP1971-OA, Order at *2 (Wis.
Dec. 3, 2020). In a concurring opinion, Justice Hagedorn noted that Wis. Stat.
§9.01(11) provides that §9.01 is the exclusive judicial remedy for an aggrieved
candidate. Defendant Evers points out that President Trump has lawsuits
pending in state circuit courts and argues that those cases raise many of the
claims the plaintiff raises here. Dkt. No. 59 at 11. He argues that the process
detailed in Wis. Stat. §9.01 is designed to allow an aggrieved candidate to
resolve election challenges promptly, and that for this court to permit the

38
Document
12/10/20
83 Filed
Page12/09/20
58 of 66 Page
Document
38 of 86
45
2217 Case 2:20-cv-01771-PP Filed

plaintiff to circumvent that process “would eviscerate Wisconsin’s careful
process for properly and quickly deciding election challenges.” Id. at 11-12.
Of course, the plaintiff has no redress under Wis. Stat. §9.01, because he
is not a “candidate” in the sense of that statute. But Evers argues that there
was a form of state-law relief available to the plaintiff. He asserts that the
plaintiff should have filed a complaint with the Wisconsin Elections
Commission under Wis. Stat. §5.06. Dkt. No. 59 at 13. That statute allows a
voter dissatisfied with the Wisconsin election process to file a written, sworn
complaint with the elections board. Wis. Stat. §5.06(1). The statute states that
no voter may “commence an action or proceeding to test the validity of any
decision, action or failure to act on the part of any election official” without first
filing a complaint under §5.06(1). Wis. Stat. §5.06(2). Evers points out that the
plaintiff has not demonstrated that he followed this procedure and thus that
the plaintiff did not exhaust his remedies before coming to federal court. Dkt.
No. 59 at 14.
The plaintiff does not directly respond to the exhaustion argument. He
simply maintains that he has a right to bring his constitutional claims in
federal court, argues that there is no evidence that the statute Evers cites is an
exhaustion requirement and asserts that the court has federal question
jurisdiction under 28 U.S.C. §1331 and supplemental jurisdiction over any
state-law claims under 28 U.S.C. §1367.6 Dkt. No. 72 at 27-28. He neatly
The court could exercise supplemental jurisdiction over state-law claims only
if there remained federal claims to which those state-law claims related. As the
court has noted, it likely would have been required to dismiss the federal
6

39
Document
12/10/20
83 Filed
Page12/09/20
59 of 66 Page
Document
39 of 86
45
2218 Case 2:20-cv-01771-PP Filed

sidesteps the question of why he did not follow a procedure that would have
allowed him to direct his concerns to the entity in charge of enforcing the
state’s election laws and in a way that likely would have brought those
concerns to that entity’s attention long before the election results were
certified.
Because the court has concluded that the plaintiff does not have
standing, and because the plaintiff has sued defendants who either are not
suable under §1983 or are protected by Eleventh Amendment immunity, the
court will not accept the invitations of the defendants and amici to wade into
the waters of the various types of abstention. If this court does not have subject
matter jurisdiction, there is no case or controversy from which it should
abstain. The court agrees with the parties, however, that the relief the plaintiff
requests—asking a federal judge to order a state governor to decertify the
election results for an entire state and direct that governor to certify a different
outcome—constitutes “an extraordinary intrusion on state sovereignty from
which a federal court should abstain under longstanding precedent.” Dkt. No.
57 at 28.
3.

Laches

The defendants argue that the equitable defense of laches requires
dismissal, because the plaintiff “inexplicably waited until after the election,
after the canvassing, after the recount, after the audit, after results were
claims because the plaintiff asserted them through §1983 against state officials
in their official capacities, which in turn would have required dismissal of any
state claims for lack of subject matter jurisdiction.
40
Document
12/10/20
83 Filed
Page12/09/20
60 of 66 Page
Document
40 of 86
45
2219 Case 2:20-cv-01771-PP Filed

certified, and indeed until the eve of the electoral college vote, to bring his claim
of state law violations and widespread fraud . . . .” Dkt. No. 52 at 11. See also,
Dkt. No 59 at 17 (“the doctrine of laches bars [the plaintiff’s] claims because he
has unreasonably delayed bringing his claims to the detriment not only of
Defendants, but also of the nearly 3.3 million voters in Wisconsin who voted in
this last election under the good-faith belief that they were following the correct
procedures to have their votes counted.”).
The doctrine of laches “addresses delay in the pursuit of a right when a
party must assert that right in order to benefit from it.” Hot Wax, Inc. v. Turtle
Wax, Inc., 191 F.3d 813, 820 (7th Cir. 1999). “For laches to apply in a
particular case, the party asserting the defense must demonstrate: (1) an
unreasonable lack of diligence by the party against whom the defense is
asserted and (2) prejudice arising therefrom.” Id. (citing Cannon v. Univ. of
Health Scis./The Chicago Med. Sch., 710 F.2d 351, 359 (7th Cir. 1983)).
“Timeliness must be judged by the knowledge of the plaintiffs as well as the
nature of the right involved.” Jones v. v. Markiewicz-Qualkinbush, 842 F.3d
1053, 1061 (7th Cir. 2016).
“The obligation to seek injunctive relief in a timely manner in the election
context is hardly a new concept.” Id. at 1060-61. In fact, the Seventh Circuit
has held that such “claims must be brought expeditiously . . . to afford the
district court sufficient time in advance of an election to rule without
disruption of the electoral cycle.” Id. at 1061 (internal quotation marks and
citations omitted).
41
Document
12/10/20
83 Filed
Page12/09/20
61 of 66 Page
Document
41 of 86
45
2220 Case 2:20-cv-01771-PP Filed

The amended complaint asserts that the alleged problems with the
Dominion voting machine software “have been widely reported in the press and
have been subject to investigation.” Dkt. No. 9 at ¶12. It cites to exhibits from
January and August of 2020. Dkt. No. 9 at 5 n.1. It cites to the WEC’s May 13,
2020 directive to clerks that they should not reject the ballots of “indefinitely
confined” absentee voters. Id. at ¶40. It cites an October 18, 2016
memorandum issued by the WEC instructing clerks on how to handle absentee
envelope certifications that did not bear the address of the witness. Id. at ¶44.
It cites October 19, 2020 instructions by the WEC to clerks about filling in
missing ballot information. Id. at ¶45.
Defendant Evers points out that the plaintiff’s own allegations
demonstrate that he has known about the Dominion voting machine issues
since long before the election. Dkt. No. 59 at 17-18. He argues that the WEC
guidance about which the plaintiff complains came in directives issued in
October 2016, May 2020 and October 2020. Id. He asserts that the plaintiff has
made no effort “to offer a justifiable explanation for why he waited until weeks
after the election to challenge” these issues. Id. at 18. The WEC defendants
advise the court that the issue regarding “indefinitely confined” voters was
litigated in state court almost eight months ago. Dkt. No. 54 at 9 (citing Pet.
For Original Action dated March 27, 2020, Supreme Court of Wisconsin, No.
2020AP000557-OA). They assert that the plaintiff “waited to challenge widelyknown procedures until after millions of voters cast their ballots in reliance on
those procedures.” Id. at 6. They state that “[i]f the doctrine of laches means
42
Document
12/10/20
83 Filed
Page12/09/20
62 of 66 Page
Document
42 of 86
45
2221 Case 2:20-cv-01771-PP Filed

anything, it is that Plaintiff here cannot overturn the results of a completed and
certified election through preliminary relief in this late-filed case.” Id.
The plaintiff first responds that laches is a defense and shouldn’t be
raised on a motion to dismiss. Dkt. No. 72 at 22. He then claims that he could
not have known the bases of any of these claims until after the election. Id. at
22-23. He says that because Wisconsin election officials did not “announce or
publicize their misconduct,” and because, he alleges, they “prevented
Republican poll watchers from observing the ballot counting and handling,” it
took him time to gather the evidence and testimony he attached to the
amended complaint. Id. at 23. Finally, he alleges that the delay post-November
3, 2020 is attributable to the defendants’ failure to timely complete the election
count. Id. He insists that he filed this suit at the earliest possible moment—the
day after the certification. Id.
The court has determined that the plaintiff does not have standing. That
means that the court does not have jurisdiction to assess the plaintiff’s
credibility, and it will refrain from doing so.
4.

Failure to state a claim upon which relief can be granted

Both defendants asked the court to dismiss the case for failure to state a
claim under Fed. R. Civ. P. 12(b)(6). Because the court does not have subject
matter jurisdiction, it will not address the sufficiency of the substantive claims
in the amended complaint.

43
Document
12/10/20
83 Filed
Page12/09/20
63 of 66 Page
Document
43 of 86
45
2222 Case 2:20-cv-01771-PP Filed

5.

Requests for injunctive relief

For the same reason, the court cannot address the merits of the
plaintiff’s request for preliminary injunctive relief.
V.

Conclusion
This court’s authority to grant relief is confined by the limits of the

Constitution. Granting the relief the plaintiff requests would take the
court far outside those limits, and outside the limits of its oath to uphold
and defendant the Constitution. The court will grant the defendants’
motion to dismiss.
The court GRANTS Defendant Governor Tony Evers’s Motion to
Dismiss Plaintiff’s Amended Complaint. Dkt. No. 51.
The court GRANTS Defendant Wisconsin Elections Commission
and Its Members’ Motion to Dismiss. Dkt. No. 53.
The court DENIES AS MOOT Plaintiff’s Corrected Motion for
Declaratory, Emergency, and Permanent Injunctive Relief. Dkt. No. 6.
The court DENIES AS MOOT Plaintiff’s Amended Motion for
Temporary Restraining Order and Preliminary Injunction to be Considered
in an Expedited Manner Dkt. No. 10.
The court DISMISSES the Amended Complaint for Declaratory,
Emergency, and Permanent Injunctive Relief. Dkt. No. 9.

44
Document
12/10/20
83 Filed
Page12/09/20
64 of 66 Page
Document
44 of 86
45
2223 Case 2:20-cv-01771-PP Filed

The court ORDERS that this case is DISMISSED.
Dated in Milwaukee, Wisconsin this 9th day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

45
Document
12/10/20
83 Filed
Page12/09/20
65 of 66 Page
Document
45 of 86
45
2224 Case 2:20-cv-01771-PP Filed

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
______________________________________________________________________________
WILLIAM FEEHAN,
Plaintiff,
JUDGMENT IN A CIVIL CASE
v.
Case No. 20-cv-1771-pp
WISCONSIN ELECTIONS COMMISSION,
ANN S. JACOBS, MARK L. THOMSEN,
MARGE BOSTELMANN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F. SPINDELL, JR.,
and TONY EVERS,
Defendants.


Jury Verdict. This case came before the court for a trial by jury. The
parties have tried the issues, and the jury has rendered its verdict.

Decision by Court. This case came before the court, the court has
decided the issues, and the court has rendered a decision.
THE COURT ORDERS AND ADJUDGES that judgment is entered in
favor of the defendants and against the plaintiff.
THE COURT ORDERS that this case is DISMISSED.
Approved and dated in Milwaukee, Wisconsin this 9th day of December,
2020.
BY THE COURT:

HON. PAMELA PEPPER
Chief United States District Judge
GINA M. COLLETTI
Clerk of Court
s/ Cary Biskupic
(by) Deputy Clerk

Case2:20-cv-01771-PP
2 20-cv-01771-PP Filed
Document
12/10/20
85 Page
Filed 12/10/20
66 of 66 Document
Page 1 of 1
86
2225 Case

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
OFFICE OF THE CLERK

GINA M. COLLETTI

362 U.S. COURTHOUSE
517 E. WISCONSIN AVE
MILWAUKEE, WI 53202

CLERK

Michael D Dean, et al.
Michael D Dean LLC
17035 W Wisconsin Ave - Ste 100
PO Box 2545
Brookfield, WI 53008
Re:

December 10, 2020

TEL: 414-297-3372
FAX: 414-297-3253
www.wied.uscourts.gov

Feehan, et al. v. Wisconsin Elections Commission, et al.
USDC Case No.: 20-C-1771

Dear Counsel:
The Notice of Appeal to the U.S. Court of Appeals for the Seventh Circuit was filed on December 10,
2020. If a transcript is necessary, you will need to complete the “7th Circuit Transcript Information
Sheet” and the “Transcript Request Form”. Both forms are available on our website at
http://wied.uscourts.gov by clicking on Forms and selecting the "Transcript Request Form" and “Seventh
Circuit Transcript Information Sheet” link.
The District Court will ensure that the record is complete and made available electronically to the Court
of Appeals within 14 days of filing the notice of appeal. Any confidential record or exhibit that is not
available electronically will be prepared and held by the District Court until requested by the Court of
Appeals. Counsel must review the docket sheet within 21 days of filing the notice of appeal to ensure
that the record is complete.
Motions to correct or modify, supplement, or strike a pleading from the record must first be filed with the
District Court. The District Court’s ruling on the motion will become part of the record and notice of the
decision will be sent to the Court of Appeals.
If a Docketing Statement, as required by Circuit Rule 3(c), was not filed with the Notice of Appeal, it
should be filed directly with the Clerk of Court for the U.S. Court of Appeals for the Seventh Circuit. If
you have any questions, please feel free to call.
Very truly yours,
GINA M. COLLETTI
Clerk of Court

Enclosure
cc:
All Counsel of Record

2226

By: /s/ L M Forseth
Deputy Clerk

Case 2:20-cv-01771-PP Filed 12/10/20 Page 1 of 1 Document 87

APPEAL,ATTYOPEN,CLOSED,RF

United States District Court
Eastern District of Wisconsin (Milwaukee)
CIVIL DOCKET FOR CASE #: 2:20−cv−01771−PP
Feehan et al v. Wisconsin Elections Commission et al
Assigned to: Chief Judge Pamela Pepper
Case in other court: 20−03396
USCA: Feehan: 12−00010−2020,
20−03396
20−03448
USCA; Feehan; 12−00015−2020,
20−03448
Cause: 42:1983 Civil Rights Act
Plaintiff
William Feehan

Date Filed: 12/01/2020
Date Terminated: 12/10/2020
Jury Demand: None
Nature of Suit: 441 Civil Rights: Voting
Jurisdiction: Federal Question

represented by Daniel J Eastman
Eastman Law
PO Box 158
Mequon, WI 53092
414−881−9383
Email: daneastman@me.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael D Dean
Michael D Dean LLC
17035 W Wisconsin Ave − Ste 100
PO Box 2545
Brookfield, WI 53008
262−798−8044
Fax: 262−798−8045
Email: miked@michaelddeanllc.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brandon Johnson
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
Emily P Newman
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED
Howard Kleinhendler
Howard Kleinhendler Esq
369 Lexington Ave − 12th Fl
New York, NY 10017
917−793−1188
Fax: 732−901−0832
Email: howard@kleinhendler.com
ATTORNEY TO BE NOTICED
Julia Z Haller
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
ATTORNEY TO BE NOTICED

2227

L Lin Wood
L Lin Wood PC
PO Box 52584
Atlanta, GA 30305−0584
404−891−1402
ATTORNEY TO BE NOTICED
Sidney Powell
Sidney Powell PC
2911 Turtle Creek Blvd − Ste 300
Dallas, TX 75219
214−707−1775
Email: sidney@federalappeals.com
ATTORNEY TO BE NOTICED
Plaintiff
Derrick Van Orden
TERMINATED: 12/03/2020

represented by Michael D Dean
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brandon Johnson
(See above for address)
ATTORNEY TO BE NOTICED
Daniel J Eastman
(See above for address)
ATTORNEY TO BE NOTICED
Emily P Newman
(See above for address)
ATTORNEY TO BE NOTICED
Howard Kleinhendler
(See above for address)
ATTORNEY TO BE NOTICED
Julia Z Haller
(See above for address)
ATTORNEY TO BE NOTICED
L Lin Wood
(See above for address)
ATTORNEY TO BE NOTICED
Sidney Powell
(See above for address)
ATTORNEY TO BE NOTICED

V.
Defendant
Wisconsin Elections Commission

2228

represented by Colin T Roth
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707−7857
608−266−0020
Fax: 608−267−2223
Email: rothct@doj.state.wi.us
ATTORNEY TO BE NOTICED

Jody J Schmelzer
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707−7857
608−266−3094
Fax: 608−267−8906
Email: schmelzerjj@doj.state.wi.us
ATTORNEY TO BE NOTICED
Sean Michael Murphy
Wisconsin Department of Justice
Office of the Attorney General
17 W Main St
PO Box 7857
Madison, WI 53707−7857
608−266−5457
Fax: 608−267−2223
Email: murphysm@doj.state.wi.us
ATTORNEY TO BE NOTICED
Defendant
Commissioner Ann S Jacobs

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Mark L Thomsen

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Commissioner Marge Bostelmann

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant

2229

Julie M Glancey

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Commissioner Dean Knudson

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Robert F Spindell, Jr

represented by Colin T Roth
(See above for address)
ATTORNEY TO BE NOTICED
Jody J Schmelzer
(See above for address)
ATTORNEY TO BE NOTICED
Sean Michael Murphy
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Tony Evers

represented by Davida Brook
Susman Godfrey LLP
1901 Ave of the Stars − Ste 950
Los Angeles, CA 90061
310−789−3100
Fax: 310−789−3150
Email: dbrook@susmangodfrey.com
ATTORNEY TO BE NOTICED
Jeffrey A Mandell
Stafford Rosenbaum LLP
222 W Washington Ave − Ste 900
PO Box 1784
Madison, WI 53701−1784
608−256−0226
Fax: 608−259−2600
Email: jmandell@staffordlaw.com
ATTORNEY TO BE NOTICED
Justin A Nelson
Susman Godfrey LLP
1000 Louisiana St − Ste 5100
Houston, TX 77002−5096
713−653−7895

2230

Fax: 713−654−6666
Email: jnelson@susmangodfrey.com
ATTORNEY TO BE NOTICED
Paul M Smith
Campaign Legal Center
1101 14th St NW − Ste 400
Washington, DC 20005
202−856−7901
Fax: 202−736−2222
Email: psmith@campaignlegal.org
ATTORNEY TO BE NOTICED
Rachel E Snyder
Stafford Rosenbaum LLP
222 W Washington Ave − Ste 900
PO Box 1784
Madison, WI 53701−1784
608−259−2657
Fax: 608−259−2600
Email: rsnyder@staffordlaw.com
ATTORNEY TO BE NOTICED
Richard Manthe
Stafford Rosenbaum LLP
222 W Washington Ave − Ste 900
PO Box 1784
Madison, WI 53701−1784
608−259−2684
Email: rmanthe@staffordlaw.com
ATTORNEY TO BE NOTICED
Stephen Morrissey
Susman Godfrey LLP
1201 3rd Ave − Ste 3800
Seattle, WA 98101
206−373−7380
Email: smorrissey@susmangodfrey.com
ATTORNEY TO BE NOTICED
Stephen Shackelford , Jr
Susman Godfrey LLP
1301 Ave of the Americans −32nd Fl
New York, NY 10019
212−729−2012
Email: sshackelford@susmangodfrey.com
ATTORNEY TO BE NOTICED
Amicus
Wisconsin State Conference NAACP

represented by Allison E Laffey
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7003
Fax: 414−755−7089
Email: alaffey@llgmke.com
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
Lawyers Committee for Civil Rights Under
Law
1500 K Street NW − Ste 900
Washington, DC 20005
202−662−8345

2231

Fax: 202−783−0857
Email: erosenberg@lawyerscommittee.org
ATTORNEY TO BE NOTICED
Jacob Conarck
Lawyer's Committee for Civil Rights Under
Law
1500 K St NW − 9th Fl
Washington, DC 20005
202−662−8315
Fax: 202−783−0857
Email: jpconarck@gmail.com
ATTORNEY TO BE NOTICED
John W Halpin
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7261
Fax: 414−755−7089
Email: jhalpin@llgmke.com
ATTORNEY TO BE NOTICED
Jon Greenbaum
Lawyers'Committee for Civil Rights Under
Law
District Of Columbia
1500 K Street NW − 9th Fl
Washington, DC 20005
202−662−8315
Email: jgreenbaum@lawyerscommittee.org
ATTORNEY TO BE NOTICED
Joseph S Goode
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7003
Fax: 414−755−7089
Email: jgoode@llgmke.com
ATTORNEY TO BE NOTICED
Mark M Leitner
Laffey Leitner & Goode LLC
325 E Chicago St − Ste 200
Milwaukee, WI 53202
414−312−7003
Fax: 414−755−7089
Email: mleitner@llgmke.com
ATTORNEY TO BE NOTICED
Amicus
Dorothy Harrell

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED

2232

Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED
Amicus
Wendell J. Harris, Sr.

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED

Amicus
Earnestine Moss

represented by Allison E Laffey
(See above for address)
ATTORNEY TO BE NOTICED
Ezra D Rosenberg
(See above for address)
ATTORNEY TO BE NOTICED
John W Halpin
(See above for address)
ATTORNEY TO BE NOTICED
Jon Greenbaum
(See above for address)
ATTORNEY TO BE NOTICED
Joseph S Goode
(See above for address)
ATTORNEY TO BE NOTICED
Mark M Leitner
(See above for address)
ATTORNEY TO BE NOTICED

2233

V.
Intervenor
Democratic National Committee

represented by Sopen B Shah
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−7460
Fax: 608−663−7460
Email: SShah@perkinscoie.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Will McDonell Conley
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−7460
Fax: 608−663−7499
Email: WConley@perkinscoie.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Charles G Curtis , Jr
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−5411
Fax: 608−663−7499
Email: ccurtis@perkinscoie.com
ATTORNEY TO BE NOTICED
Christopher Bouchoux
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007
212−230−8823
Email: christopher.bouchoux@wilmerhale.com
ATTORNEY TO BE NOTICED
David S Lesser
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007
212−230−8851
Email: david.lesser@wilmerhale.com
ATTORNEY TO BE NOTICED
Jamie Dycus
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007
212−937−7236
Email: jamie.dycus@wilmerhale.com
ATTORNEY TO BE NOTICED

2234

Joseph J Yu
Wilmer Cutler Pickering Hale and Dorr
LLP
7 World Trade Center
New York, NY 10007

212−295−6551
Email: joseph.yu@wilmerhale.com
ATTORNEY TO BE NOTICED
Michelle M Umberger
Perkins Coie LLP
33 E Main St − Ste 201
Madison, WI 53703
608−663−7460
Fax: 608−663−7499
Email: MUmberger@perkinscoie.com
ATTORNEY TO BE NOTICED
Seth P Waxman
Wilmer Cutler Pickering Hale and Dorr
LLP
1875 Pennsylvania Ave NW
Washington, DC 20006
202−663−6800
Fax: 202−663−6363
Email: seth.waxman@wilmerhale.com
ATTORNEY TO BE NOTICED
V.
Movant
James Gesbeck

Date Filed

#

Docket Text

12/01/2020

1 COMPLAINT against All Plaintiffs by William Feehan. ( Filing Fee PAID $400
receipt number AWIEDC−3652059) (Attachments: # 1 Exhibit, # 2 Exhibit, # 3
Exhibit, # 4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8 Exhibit, # 9 Exhibit, # 10
Exhibit, # 11 Exhibit, # 12 Exhibit, # 13 Exhibit, # 14 Exhibit, # 15 Exhibit, # 16
Exhibit, # 17 Exhibit, # 18 Exhibit, # 19 Exhibit, # 20 Exhibit, # 21 Exhibit, # 22
Exhibit, # 23 Exhibit, # 24 Exhibit, # 25 Exhibit, # 26 Exhibit, # 27 Exhibit)(Dean,
Michael) (Additional attachment(s) added on 12/1/2020: # 28 Civil Cover Sheet) (jcl).

12/01/2020

2 MOTION for Temporary Restraining Order by All Plaintiffs. (Dean, Michael)

12/01/2020

3 BRIEF in Support filed by All Plaintiffs re 2 MOTION for Temporary Restraining
Order . (Dean, Michael)

12/01/2020

2235

represented by James Gesbeck
9302 Harvest Moon Lane
Verona, WI 53593
PRO SE

NOTICE Regarding assignment of this matter to Chief Judge Pamela Pepper;
Consent/refusal forms for Magistrate Judge Joseph to be filed within 21 days; the
consent/refusal form is available here. Pursuant to Civil Local Rule 7.1 a disclosure
statement is to be filed upon the first filing of any paper and should be filed now if not
already filed. (jcl)

12/01/2020

4 Magistrate Judge Jurisdiction Form filed by All Plaintiffs. (NOTICE: Pursuant to
Fed.R.Civ.P. 73 this document is not viewable by the judge.) (Dean, Michael)

12/01/2020

5 DISCLOSURE Statement by All Plaintiffs. (Dean, Michael)

12/01/2020

6 MOTION to Amend/Correct Docket # 2: PLAINTIFFS MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF by
All Plaintiffs. (Attachments: # 1 Text of Proposed Order)(Dean, Michael)

12/02/2020

7 ORDER signed by Chief Judge Pamela Pepper on 12/2/2020 re 6 Amended Motion for
Injunctive Relief. (cc: all counsel)(cb)

12/02/2020

8 NOTICE of Appearance by Sidney Powell on behalf of All Plaintiffs. Attorney(s)
appearing: Sidney Powell (Powell, Sidney)

12/03/2020

9 AMENDED COMPLAINT removing Derrick Van Orden as Plaintiff against All
Defendants filed by William Feehan. (Attachments: # 1 Exhibit, # 2 Exhibit, # 3
Exhibit, # 4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8 Exhibit, # 9 Exhibit, # 10
Exhibit, # 11 Exhibit, # 12 Exhibit, # 13 Exhibit, # 14 Exhibit, # 15 Exhibit, # 16
Exhibit, # 17 Exhibit, # 18 Exhibit, # 19 Exhibit)(Dean, Michael)

12/03/2020

10 Emergency MOTION to Amend/Correct Docket # 6: PLAINTIFFS CORRECTED
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF by William Feehan. (Attachments: # 1 Information Sheet
Proposed Briefing Schedule)(Dean, Michael)

12/03/2020

11 NOTICE of Appearance by Jeffrey A Mandell on behalf of Tony Evers. Attorney(s)
appearing: Jeffrey A. Mandell (Mandell, Jeffrey)

12/03/2020

12 NOTICE of Appearance by Rachel E Snyder on behalf of Tony Evers. Attorney(s)
appearing: Rachel E. Snyder (Snyder, Rachel)

12/03/2020

13 NOTICE of Appearance by Howard Kleinhendler on behalf of William Feehan.
Attorney(s) appearing: Howard Kleinhendler (Kleinhendler, Howard)

12/03/2020

14 MOTION to Intervene by James Gesbeck. (Attachments: # 1 Proposed Answer, # 2
Certificate of Service)(asc)

12/03/2020

15 BRIEF in Support filed by James Gesbeck re 14 MOTION to Intervene. (asc)

12/03/2020

16 MOTION Reassign Case Pursuant to Civil L.R. 3(b) by Tony Evers. (Attachments: # 1
Exhibit 1 − Notice from Case 20−CV−1785)(Mandell, Jeffrey)

12/03/2020

17 NOTICE of Appearance by Sean Michael Murphy on behalf of Marge Bostelmann,
Julie M Glancey, Ann S Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L
Thomsen, Wisconsin Elections Commission. Attorney(s) appearing: Sean Michael
Murphy, Jody J. Schmelzer, Colin T. Roth (Murphy, Sean)

12/03/2020

18 RESPONSE to Motion filed by William Feehan re 16 MOTION Reassign Case
Pursuant to Civil L.R. 3(b) . (Dean, Michael)

12/03/2020

19 ORDER signed by Chief Judge Pamela Pepper on 12/3/2020 DENYING 16 defendant
Tony Evers's motion to reassign case pursuant to Civil L.R. 3(b). (cc: all counsel)(cb)

12/03/2020

20 NOTICE of Appearance by Charles G Curtis, Jr on behalf of Democratic National
Committee. Attorney(s) appearing: Charles G. Curtis (Curtis, Charles)

12/03/2020

21 NOTICE of Appearance by Michelle M Umberger on behalf of Democratic National
Committee. Attorney(s) appearing: Michelle M. Umberger (Umberger, Michelle)

12/03/2020

2236

Party Derrick Van Orden terminated. (amb) (Entered: 12/04/2020)

12/04/2020

22 MOTION to Intervene by Democratic National Committee. (Attachments: # 1 Exhibit
1−Proposed Answer, # 2 Text of Proposed Order)(Umberger, Michelle)

12/04/2020

23 BRIEF in Support filed by Democratic National Committee re 22 MOTION to
Intervene . (Umberger, Michelle)

12/04/2020

24 DISCLOSURE Statement by Democratic National Committee. (Umberger, Michelle)

12/04/2020

25 REPLY filed by Tony Evers to Plaintiff's Proposed Briefing Schedule. (Mandell,
Jeffrey)

12/04/2020

26 REPLY filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean Knudson,
Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission to
Plaintiff's Proposed Briefing Schedule. (Murphy, Sean)

12/04/2020

27 NOTICE of Appearance by Justin A Nelson on behalf of Tony Evers. Attorney(s)
appearing: Justin A. Nelson (Nelson, Justin)

12/04/2020

28 NOTICE of Appearance by Davida Brook on behalf of Tony Evers. Attorney(s)
appearing: Davida Brook (Brook, Davida)

2237

12/04/2020

29 ORDER signed by Chief Judge Pamela Pepper on 12/4/2020. 10 Plaintiff's amended
motion GRANTED IN PART to extent that it is Civil L.R. 7(h) expedited
non−dispositive motion for expedited briefing schedule; defendant's opposition to
plaintiff's amended motion due by 5:00 PM on 12/7/2020, plaintiff's reply due by 5:00
PM on 12/8/2020. The court DEFERS RULING on plaintiff's amended motion to
extent that it asks the court to issue TRO or preliminary injunction. (cc: all
counsel)(cb)

12/04/2020

30 NOTICE of Appearance by Stephen Shackelford, Jr on behalf of Tony Evers.
Attorney(s) appearing: Stephen L. Shackelford, Jr. (Shackelford, Stephen)

12/04/2020

31 NOTICE of Appearance by Richard Manthe on behalf of Tony Evers. Attorney(s)
appearing: Richard A. Manthe (Manthe, Richard)

12/04/2020

32 NOTICE of Appearance by Paul M Smith on behalf of Tony Evers. Attorney(s)
appearing: Paul M. Smith (Smith, Paul)

12/04/2020

33 7(h) Expedited NON−DISPOSITIVE MOTION to Intervene by James Gesbeck.
(Attachments: # 1 Certificate of Service)(lz)

12/04/2020

34 MOTION for Leave to File Excess Pages by Tony Evers. (Mandell, Jeffrey)

12/04/2020

35 NOTICE of Appearance by Sidney Powell on behalf of All Plaintiffs. Attorney(s)
appearing: Sidney Powell (Powell, Sidney)

12/04/2020

36 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/4/2020 re 34
MOTION for Leave to File Excess Pages filed by Tony Evers: The defendant seeks
leave to file a brief in excess of the thirty pages allowed by Civil L.R. 7(f) because he
proposes to both oppose the plaintiff's amended motion for injunctive relief and
support his own, not yet filed motion to dismiss in the same pleading. The court
appreciates any party's effort to streamline litigation, but would prefer that the
defendant file separate briefs opposing the plaintiff's amended motion and supporting
his own. This will avoid confusion when the plaintiff responds. The court DENIES the
defendant's motion for leave to file excess pages. NOTE: There is no document
associated with this text−only order. (cc: all counsel)(Pepper, Pamela)

12/04/2020

37 ORDER signed by Chief Judge Pamela Pepper on 12/4/2020 allowing James Gesbeck
to file amicus curiae brief by 5:00 PM on 12/7/2020. (cc: all counsel, via mail to
James Gesbeck)(cb)

12/05/2020

38 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/5/2020 re 22
MOTION to Intervene filed by Democratic National Committee signed by Chief Judge
Pamela Pepper on 12/5/2020: Under Civil L.R. 7(b), the plaintiff's response is due by
December 25, 2020; because December 25 is a federal holiday, the court ORDERS
that the plaintiff's response is due by December 28, 2020. NOTE: There is no
document associated with this text−only order. (cc: all counsel)(Pepper, Pamela)

12/05/2020

39 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/05/2020 re 33
MOTION to Intervene filed by James Gesbeck: Under Civil L.R. 7(h), the plaintiff's
response is due by Friday, December 11, 2020. NOTE: There is no document
associated with this text−only order. (cc: all counsel)(Pepper, Pamela)

12/05/2020

40 Expedited MOTION to Intervene by Democratic National Committee. (Umberger,
Michelle)

12/06/2020

41 ORDER signed by Chief Judge Pamela Pepper on 12/6/2020. 40 Movant DNC's
expedited motion to intervene GRANTED to extent that court has expedited its ruling
on original motion to intervene. 22 Movant DNC's original motion to intervene
DENIED. Movant DNC may file amicus curiae brief by 5:00 PM on 12/7/2020. (cc:
all counsel)(cb)

12/06/2020

42 BRIEF in Support filed by William Feehan re 10 Emergency MOTION to
Amend/Correct Docket # 6: PLAINTIFFS CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF
Amended Brief. (Dean, Michael)

12/06/2020

43 MOTION To File Separate Reply Briefs by William Feehan. (Dean, Michael)

2238

12/06/2020

44 MOTION To Hold Consolidated Evidentiary Hearing/Trial by William Feehan. (Dean,
Michael)

12/07/2020

45 TEXT ONLY ORDER signed by Chief Judge Pamela Pepper on 12/7/2020 re 43
MOTION To File Separate Reply Briefs filed by William Feehan: The court
GRANTS the plaintiff's motion for leave to file separate reply briefs. If the defendants
file a single opposition brief, the plaintiff must file one reply to that brief. If the
defendants file separate opposition briefs, the plaintiff may file a reply for each
opposition brief. The plaintiff also may file a separate reply for each brief filed by an
amicus. (In other words, the plaintiff could file up to four reply briefs if the defendants
file separate briefs and each amicus files a brief.) If the defendants file a separate
motion to dismiss, the plaintiff may file an opposition brief of up to thirty pages under
Civil L.R. 7(b). NOTE: There is no document associated with this text−only order.
(cc: all counsel)(Pepper, Pamela)

12/07/2020

NOTICE of Hearing: Status Conference set for 12/8/2020 at 11:00 AM by telephone
before Chief Judge Pamela Pepper. The parties are to appear by calling the court's
conference line at 888−557−8511 and entering access code 4893665#. (cc: all
counsel)(cb)

12/07/2020

46 RESPONSE to Motion filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs,
Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections
Commission re 44 MOTION To Hold Consolidated Evidentiary Hearing/Trial .
(Murphy, Sean)

12/07/2020

47 AMICUS BRIEF in Opposition to 6 MOTION for Injunctive Relief filed by James
Gesbeck. (asc)

12/07/2020

48 NOTICE of Appearance by David S Lesser on behalf of Democratic National
Committee. Attorney(s) appearing: David S. Lesser (Lesser, David)

12/07/2020

49 NOTICE of Appearance by Jamie Dycus on behalf of Democratic National
Committee. Attorney(s) appearing: Jamie S. Dycus (Dycus, Jamie)

12/07/2020

50 NOTICE of Appearance by Stephen Morrissey on behalf of Tony Evers. Attorney(s)
appearing: Stephen E. Morrissey (Morrissey, Stephen)

12/07/2020

51 MOTION to Dismiss Plaintiff's Amended Complaint by Tony Evers. (Mandell,
Jeffrey)

12/07/2020

52 RESPONSE to Motion filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs,
Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections
Commission re 2 MOTION for Temporary Restraining Order . (Murphy, Sean)

12/07/2020

53 MOTION to Dismiss by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean
Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission.
(Murphy, Sean)

12/07/2020

54 BRIEF in Support filed by Marge Bostelmann, Julie M Glancey, Ann S Jacobs, Dean
Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections Commission
re 53 MOTION to Dismiss . (Murphy, Sean)

12/07/2020

55 BRIEF in Opposition filed by Tony Evers re 10 Emergency MOTION to
Amend/Correct Docket # 6: PLAINTIFFS CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF .
(Attachments: # 1 Exhibit 1 WVA v. WEC, # 2 Exhibit 2 Trump v. Boockvar, # 3
Exhibit 3 Wood v. Raffensperger, # 4 Exhibit 4 Wood v. Raffensperger (11th Cir.), # 5
Exhibit 5 King v. Whitmer TRO Decision, # 6 Exhibit 6 Zilisch v. R.J. Reynolds, # 7
Exhibit 7 Consolidate Water v..40 Acres, # 8 Exhibit 8 Jefferson v. Dane County, # 9
Exhibit 9 Bognet v. Secretary of Commonwealth, # 10 Exhibit 10 O'Bright v. Lynch
Order, # 11 Exhibit 11 Trump v. Evers Order)(Mandell, Jeffrey)

12/07/2020

56 MOTION for Leave to File Amicus Curiae Brief by Wisconsin State Conference
NAACP, Dorothy Harrell, Wendell J. Harris, Sr., Earnestine Moss. (Goode, Joseph)

12/07/2020

57 BRIEF in Opposition filed by Democratic National Committee re 10 Emergency
MOTION to Amend/Correct Docket # 6: PLAINTIFFS CORRECTED MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF .
(Attachments: # 1 Exhibit 1 − Washington Voters Alliance Case, # 2 Exhibit 2 −

Trump v. Evers Case, # 3 Exhibit 3 − Mueller v. Jacobs Case, # 4 Exhibit 4 − King v.
Benson Case, # 5 Exhibit 5 − March 29, 2020 Guidance, # 6 Exhibit 6 − Jefferson v.
Dane Case, # 7 Exhibit 7 − October 18, 2016 Guidance, # 8 Exhibit 8 − Election
Manual, # 9 Exhibit 9 − November 10, 2020 Guidance)(Umberger, Michelle)

2239

12/07/2020

58 UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed by Marge Bostelmann,
Julie M Glancey, Ann S Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L
Thomsen, Wisconsin Elections Commission (Attachments: # 1 Exhibit 1− Martel v.
Condos, # 2 Exhibit 2− Moore v. Circosta, # 3 Exhibit 3− Donald J. Trump for
President v. Cegavske, # 4 Exhibit 4− Bognet v. Secretary of the Commonwealth of
Pennsylvania, # 5 Exhibit 5− Donald J. Trump for President v. Boockvar, # 6 Exhibit
6− Donald J. Trump for President v. Pennsylvania, # 7 Exhibit 7− Wood v.
Raffensperger, # 8 Exhibit 8− King v. Whitmer)(Murphy, Sean)

12/07/2020

59 BRIEF in Support filed by Tony Evers re 51 MOTION to Dismiss Plaintiff's Amended
Complaint . (Attachments: # 1 Exhibit 1 Whitake v. Kenosha, # 2 Exhibit 2 Bognet v.
Secretary of Commenwealth, # 3 Exhibit 3 Hotze v. Hollins, # 4 Exhibit 4 Wood v.
Raffensperger, # 5 Exhibit 5 Wood v. Raffensperger (11th Cir.), # 6 Envelope 6 Moore
v. Circosta, # 7 Exhibit 7 Trump v. Evers, # 8 Exhibit 8 WVA v. WEC, # 9 Exhibit 9
Trump Notice of Appeal, # 10 Exhibit 10Trump v. Biden Consolidation Order, # 11
Exhibit 11 Andino v. Middleton, # 12 Exhibit 12 Massey v. Coon, # 13 Exhibit 13
Balsam v. New Jersey, # 14 Exhibit 14 Thompson v. Alabama, # 15 Exhibit 15
Braynard Expert Report)(Mandell, Jeffrey)

12/07/2020

60 BRIEF in Opposition filed by Tony Evers re 44 MOTION To Hold Consolidated
Evidentiary Hearing/Trial . (Mandell, Jeffrey)

12/08/2020

61 NOTICE of Appearance by Jon Greenbaum on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s)
appearing: Jon Greenbaum (Greenbaum, Jon)

12/08/2020

62 NOTICE of Appearance by Allison E Laffey on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s)
appearing: Allison E. Laffey (Laffey, Allison)

12/08/2020

63 NOTICE of Appearance by John W Halpin on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s)
appearing: John W. Halpin (Halpin, John)

12/08/2020

64 NOTICE of Appearance by Mark M Leitner on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s)
appearing: Mark M. Leitner (Leitner, Mark)

12/08/2020

65 NOTICE of Appearance by Joseph S Goode on behalf of Dorothy Harrell, Wendell J.
Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s)
appearing: Joseph S. Goode (Goode, Joseph)

12/08/2020

66 NOTICE of Appearance by Ezra D Rosenberg on behalf of Dorothy Harrell, Wendell
J. Harris, Sr., Earnestine Moss, Wisconsin State Conference NAACP. Attorney(s)
appearing: Ezra D. Rosenberg (Rosenberg, Ezra)

12/08/2020

67 NOTICE of Appearance by Jacob Conarck on behalf of Wisconsin State Conference
NAACP. Attorney(s) appearing: Jacob P. Conarck (Conarck, Jacob)

12/08/2020

68 NOTICE of Appearance by Seth P Waxman on behalf of Democratic National
Committee. Attorney(s) appearing: Seth P. Waxman (Waxman, Seth)

12/08/2020

69 ORDER signed by Chief Judge Pamela Pepper on 12/8/2020 GRANTING 56 Motion
for Leave to File Amicus Curiae Brief filed by Earnestine Moss, Dorothy Harrell,
Wisconsin State Conference NAACP, Wendell J. Harris, Sr. (cc: all counsel)(cb)

12/08/2020

70

12/08/2020

71 Court Minutes and Order from the Status Conference held before Chief Judge Pamela
Pepper on 12/8/2020. The court DENIES the 44 Motion for Consolidated Evidentiary
Hearing and Trial on the Merits. The court ORDERS the plaintiff to file his responses
to the motions to dismiss (Dkt. Nos. 51 and 53) and reply brief in support of his

Audio of statue conference held on 12/8/2020 at 11:08 a.m.; File Size (51.1 MB)
(kgw)

motion for injunctive relief (Dkt. No. 10) by December 8, 2020 at 5 p.m. CST. The
court ORDERS that if the defendants and amici wish to file reply briefs in support of
the motions to dismiss, they must do so by December 9, 2020 at 3 p.m. CST. (Court
Reporter Thomas Malkiewicz.) (kgw)

2240

12/08/2020

72 BRIEF in Opposition filed by William Feehan re 51 MOTION to Dismiss Plaintiff's
Amended Complaint, 10 Emergency MOTION to Amend/Correct Docket # 6:
PLAINTIFFS CORRECTED MOTION FOR DECLARATORY, EMERGENCY,
AND PERMANENT INJUNCTIVE RELIEF , 53 MOTION to Dismiss and
Consolidated in Reply/Response to Response Briefs of Defendants and Opposition
Briefs of Amici. (Attachments: # 1 Exhibit, # 2 Exhibit)(Dean, Michael)

12/09/2020

73 REPLY BRIEF in Support filed by Tony Evers re 51 MOTION to Dismiss Plaintiff's
Amended Complaint . (Attachments: # 1 Exhibit 1 American Commercial Barge Lines
v. Reserve FTL, # 2 Exhibit 2 Trump v. Secretary of Pennsylvania)(Mandell, Jeffrey)

12/09/2020

74 ORDER signed by Chief Judge Pamela Pepper on 12/9/2020. 14 James Gesbeck's
motion to intervene DENIED. 33 James Gesbeck's Civil LR 7(h) motion to intervene
GRANTED to extent it asks the court to expedite ruling on motion to intervene and
DENIED to extent it asks the court to grant motion to intervene. (cc: all counsel)(cb)

12/09/2020

75 MOTION to Seal Document Public Motion Prior to Filing Sealed/Restricted Exhibits
by William Feehan. (Attachments: # 1 Exhibit, # 2 Exhibit)(Dean, Michael)

12/09/2020

76 BRIEF in Support filed by William Feehan re 75 MOTION to Seal Document Public
Motion Prior to Filing Sealed/Restricted Exhibits . (Dean, Michael)

12/09/2020

77 REPLY BRIEF in Support filed by Marge Bostelmann, Julie M Glancey, Ann S
Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L Thomsen, Wisconsin Elections
Commission re 53 MOTION to Dismiss . (Murphy, Sean)

12/09/2020

78 UNPUBLISHED Decision Pursuant to Civil L.R. 7(J) filed by Marge Bostelmann,
Julie M Glancey, Ann S Jacobs, Dean Knudson, Robert F Spindell, Jr, Mark L
Thomsen, Wisconsin Elections Commission (Attachments: # 1 Exhibit 1− King, # 2
Exhibit 2− Bognet, # 3 Exhibit 3− Boockvar, # 4 Exhibit 4− Hotze, # 5 Exhibit 5−
Massey, # 6 Exhibit 6− Aguila Management, # 7 Exhibit 7− Solow Building
Co.)(Murphy, Sean)

12/09/2020

79 BRIEF in Opposition filed by Dorothy Harrell, Wendell J. Harris, Sr., Earnestine
Moss, Wisconsin State Conference NAACP re 6 MOTION to Amend/Correct Docket
# 2: PLAINTIFFS MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF , 10 Emergency MOTION to Amend/Correct
Docket # 6: PLAINTIFFS CORRECTED MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF . (Goode, Joseph)

12/09/2020

80 NOTICE of Appearance by Christopher Bouchoux on behalf of Democratic National
Committee. Attorney(s) appearing: Christopher Bouchoux (Bouchoux, Christopher)

12/09/2020

81 NOTICE by Tony Evers Notice of Supplemental Authority (Brook, Davida)

12/09/2020

82 ORDER signed by Chief Judge Pamela Pepper on 12/9/2020 DENYING 75 plaintiff's
Motion to Seal Document Public Motion Prior to Filing Sealed/Restricted Exhibits.
(cc: all counsel)(cb)

12/09/2020

83 ORDER DISMISSING CASE signed by Chief Judge Pamela Pepper on 12/9/2020. 51
Defendant Evers's motion to dismiss plaintiff's amended complaint GRANTED. 53
Defendants Wisconsin Elections Commission and its Members motion to dismiss
GRANTED. 6 Plaintiff's corrected motion for declaratory, emergency and permanent
injunctive relief DENIED as moot. 10 Plaintiff's amended motion for temporary
restraining order and preliminary injunction to be considered in an expedited manner
DENIED as moot. 9 Plaintiff's amended complaint for declaratory, emergency and
permanent injunctive relief DISMISSED. (cc: all counsel)(cb)

12/10/2020

84 NOTICE OF APPEAL as to 83 Order Dismissing Case,,, Terminate Motions,, by
William Feehan. Filing Fee PAID $505, receipt number AWIEDC−3664794 (cc: all
counsel) (Dean, Michael)

2241

12/10/2020

85 JUDGMENT signed by Deputy Clerk and approved by Chief Judge Pamela Pepper on
12/9/2020. (cc: all counsel)(cb)

12/10/2020

86 Transmission of Notice of Appeal and Docket Sheet to US Court of Appeals re 84
Notice of Appeal (lmf)

12/10/2020

87 Attorney Cover Letter re: 84 Notice of Appeal (Attachments: # 1 Docket Sheet)(lmf)

12/10/2020

88 USCA Case Number 20−3396 re: 84 Notice of Appeal filed by William Feehan. (lmf)

12/15/2020

89 NOTICE of Appearance by Joseph J Yu on behalf of Democratic National Committee.
Attorney(s) appearing: Joseph J. Yu (Yu, Joseph)

12/15/2020

90 AMENDED NOTICE OF APPEAL as to 85 Judgment, 83 Order Dismissing Case,,,
Terminate Motions,, by William Feehan. (cc: all counsel) (Dean, Michael) Modified
on 12/16/2020 (lmf).

12/15/2020

93 USCA Case Number 20−3448 re: 90 Amended Notice of Appeal filed by William
Feehan. (Attachments: # 1 Circuit Rule 3(b) Notice)(lmf) (Entered: 12/17/2020)

12/16/2020

91 Transmission of Notice of Appeal and Docket Sheet to US Court of Appeals re 90
Notice of Appeal (lmf)

12/16/2020

92 Attorney Cover Letter re: 90 Amended Notice of Appeal (Attachments: # 1 Docket
Sheet)(lmf)

12/22/2020

94 USCA Mandate (certified copy) as to 84 Notice of Appeal filed by William Feehan
USCA Number 20−3396. IT IS ORDERED that appeal no. 20−3396 is voluntarily
DISMISSED pursuant to Federal Rule of Appellate Procedure 42(b). Dismissal is
without prejudice to appellant pursuing his claims in appeal no. 20−3448. (lmf)

Case: 20-3396

Document: 1-3

Filed: 12/10/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

NOTICE OF DOCKETING - Short Form
December 10, 2020

The below captioned appeal has been docketed in the United States Court of Appeals for the
Seventh Circuit:
Appellate Case No: 20-3396
Caption:
WILLIAM FEEHAN,
Plaintiff - Appellant
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants - Appellees

District Court No: 2:20-cv-01771-PP
District Judge Pamela Pepper
Clerk/Agency Rep Gina M. Colletti
Date NOA filed in District Court: 12/10/2020

If you have any questions regarding this appeal, please call this office.

form name: c7 Docket Notice short form(form ID: 188)

2242

Case 2:20-cv-01771-PP Filed 12/10/20 Page 1 of 1 Document 88

Case: 20-3448

Document: 1-3

Filed: 12/16/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

NOTICE OF DOCKETING - Short Form
December 16, 2020

The below captioned appeal has been docketed in the United States Court of Appeals for the
Seventh Circuit:
Appellate Case No: 20-3448
Caption:
WILLIAM FEEHAN,
Plaintiff - Appellant
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants - Appellees

District Court No: 2:20-cv-01771-PP
District Judge Pamela Pepper
Clerk/Agency Rep Gina M. Colletti
Date NOA filed in District Court: 12/15/2020

If you have any questions regarding this appeal, please call this office.

form name: c7 Docket Notice short form(form ID: 188)

2243

Case 2:20-cv-01771-PP Filed 12/15/20 Page 1 of 1 Document 93

CONSTITUTIONAL PROVISIONS
1.

U . S . C O N S T . A R T . II, A R T . 1 :
The Times, Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the Legislature
thereof; but the Congress may at any time by Law make or alter such
Regulations, except as to the Places of chusing Senators.

STATUTES
2.

2 8 U.S .C. § 1 3 3 1
The district courts shall have original jurisdiction of all civil actions arising

under the Constitution, laws, or treaties of the United States.
3.

2 8 U.S .C. 1 3 4 3
(a) The district courts shall have original jurisdiction of any civil action
authorized by law to be commenced by any person:
(1) To recover damages for injury to his person or property, or
because of the deprivation of any right or privilege of a citizen of
the United States, by any act done in furtherance of any conspiracy
mentioned in section 1985 of Title 42;
(2) To recover damages from any person who fails to prevent or to
aid in preventing any wrongs mentioned in section 1985 of Title
42 which he had knowledge were about to occur and power to
prevent;
(3) To redress the deprivation, under color of any State law,
statute, ordinance, regulation, custom or usage, of any right,
privilege or immunity secured by the Constitution of the United
States or by any Act of Congress providing for equal rights of
citizens or of all persons within the jurisdiction of the United
States;
(4) To recover damages or to secure equitable or other relief under
any Act of Congress providing for the protection of civil rights,
including the right to vote.
(b) For purposes of this section—

2244

(1) the District of Columbia shall be considered to be a State; and
(2) any Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the District of
Columbia.
4.

2 8 U.S .C. § 1 3 6 7
(a) Except as provided in subsections (b) and (c) or as expressly provided
otherwise by Federal statute, in any civil action of which the district
courts have original jurisdiction, the district courts shall have
supplemental jurisdiction over all other claims that are so related to
claims in the action within such original jurisdiction that they form part
of the same case or controversy under Article III of the United States
Constitution. Such supplemental jurisdiction shall include claims that
involve the joinder or intervention of additional parties.
(b) In any civil action of which the district courts have original
jurisdiction founded solely on section 1332 of this title, the district courts
shall not have supplemental jurisdiction under subsection (a) over claims
by plaintiffs against persons made parties under Rule 14, 19, 20, or 24 of
the Federal Rules of Civil Procedure, or over claims by persons proposed
to be joined as plaintiffs under Rule 19 of such rules, or seeking to
intervene as plaintiffs under Rule 24 of such rules, when exercising
supplemental jurisdiction over such claims would be inconsistent with
the jurisdictional requirements of section 1332.
(c) The district courts may decline to exercise supplemental jurisdiction
over a claim under subsection (a) if—
(1) the claim raises a novel or complex issue of State law,
(2) the claim substantially predominates over the claim or claims
over which the district court has original jurisdiction,
(3) the district court has dismissed all claims over which it has
original jurisdiction, or
(4) in exceptional circumstances, there are other compelling
reasons for declining jurisdiction.
(d) The period of limitations for any claim asserted under subsection (a),
and for any other claim in the same action that is voluntarily dismissed
at the same time as or after the dismissal of the claim under subsection
(a), shall be tolled while the claim is pending and for a period of 30 days
after it is dismissed unless State law provides for a longer tolling period.

2245

(e) As used in this section, the term “State” includes the District of
Columbia, the Commonwealth of Puerto Rico, and any territory or
possession of the United States.
5.

2 8 U.S .C. § 1 6 5 1
(a) The Supreme Court and all courts established by Act of Congress may
issue all writs necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles of law.
(b) An alternative writ or rule nisi may be issued by a justice or judge of a
court which has jurisdiction.

6.

4 2 U.S .C. § 1 9 8 3
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable. For
the purposes of this section, any Act of Congress applicable exclusively to
the District of Columbia shall be considered to be a statute of the District
of Columbia.

7.

4 2 U.S .C. § 1 9 8 8 ( A )
(a)Applicability of statutory and common law
The jurisdiction in civil and criminal matters conferred on the district
courts by the provisions of titles 13, 24, and 70 of the Revised Statutes for
the protection of all persons in the United States in their civil rights, and
for their vindication, shall be exercised and enforced in conformity with
the laws of the United States, so far as such laws are suitable to carry the
same into effect; but in all cases where they are not adapted to the object,
or are deficient in the provisions necessary to furnish suitable remedies
and punish offenses against law, the common law, as modified and
changed by the constitution and statutes of the State wherein the court
having jurisdiction of such civil or criminal cause is held, so far as the
same is not inconsistent with the Constitution and laws of the United
States, shall be extended to and govern the said courts in the trial and

2246

disposition of the cause, and, if it is of a criminal nature, in the infliction
of punishment on the party found guilty.
8.

2 8 US C § 2 2 0 1
(a) In a case of actual controversy within its jurisdiction, except with
respect to Federal taxes other than actions brought under section 7428 of
the Internal Revenue Code of 1986, a proceeding under section 505 or
1146 of title 11, or in any civil action involving an antidumping or
countervailing duty proceeding regarding a class or kind of merchandise
of a free trade area country (as defined in section 516A(f)(9) of the Tariff
Act of 1930), as determined by the administering authority, any court of
the United States, upon the filing of an appropriate pleading, may declare
the rights and other legal relations of any interested party seeking such
declaration, whether or not further relief is or could be sought. Any such
declaration shall have the force and effect of a final judgment or decree
and shall be reviewable as such.
(b) For limitations on actions brought with respect to drug patents see
section 505 or 512 of the Federal Food, Drug, and Cosmetic Act, or section
351 of the Public Health Service Act.

9.

2 8 US C 2 2 0 2
Further necessary or proper relief based on a declaratory judgment or
decree may be granted, after reasonable notice and hearing, against any
adverse party whose rights have been determined by such judgment.

10.

5 2 U.S .C § 2 0 7 0 1

Every officer of election shall retain and preserve, for a period of twentytwo months from the date of any general, special, or primary election of
which candidates for the office of President, Vice President, presidential
elector, Member of the Senate, Member of the House of Representatives,
or Resident Commissioner from the Commonwealth of Puerto Rico are
voted for, all records and papers which come into his possession relating
to any application, registration, payment of poll tax, or other act requisite
to voting in such election, except that, when required by law, such records
and papers may be delivered to another officer of election and except that,
if a State or the Commonwealth of Puerto Rico designates a custodian to
retain and preserve these records and papers at a specified place, then
such records and papers may be deposited with such custodian, and the
duty to retain and preserve any record or paper so deposited shall devolve

2247

upon such custodian. Any officer of election or custodian who willfully
fails to comply with
11.

WIS. STAT. § 6.84
6.84

Construction.

(1) Legislative policy. The legislature finds that voting is a constitutional
right, the vigorous exercise of which should be strongly encouraged. In
contrast, voting by absentee ballot is a privilege exercised wholly outside
the traditional safeguards of the polling place. The legislature finds that
the privilege of voting by absentee ballot must be carefully regulated to
prevent the potential for fraud or abuse; to prevent overzealous
solicitation of absent electors who may prefer not to participate in an
election; to prevent undue influence on an absent elector to vote for or
against a candidate or to cast a particular vote in a referendum; or other
similar abuses.
(2) Interpretation. Notwithstanding s. 5.01 (1), with respect to matters
relating to the absentee ballot process, ss. 6.86, 6.87 (3) to (7) and 9.01 (1)
(b) 2. and 4. shall be construed as mandatory. Ballots cast in
contravention of the procedures specified in those provisions may not be
counted. Ballots counted in contravention of the procedures specified in
those provisions may not be included in the certified result of any
election.
12.

WIS. STAT. § 8.18
8.18

Nomination of presidential electors.

(1) Candidates for the senate and assembly nominated by each political
party at the primary, the state officers and the holdover state senators of
each political party shall meet in the state capitol at 10 a.m. on the first
Tuesday in October of each year in which there is a presidential election.
(2) The purpose of the convention is to nominate one presidential elector
from each congressional district and 2 electors from the state at large.
The names of the nominees shall be certified immediately by the
chairperson of the state committee of each party to the chairperson of the
commission.
13.

WIS. STAT. § 8.25
8.25

Election of state and federal officers.

2248

(1) Presidential electors. By general ballot at the general election for
choosing the president and vice president of the United States there shall
be elected as many electors of president and vice president as this state is
entitled to elect senators and representatives in congress. A vote for the
president and vice president nominations of any party is a vote for the
electors of the nominees.
(2) United States senator. One senator to serve in the United States
congress shall be chosen at the general election in 1962 and every 6 years
thereafter and another in 1964 and every 6 years thereafter.
(3) Representative in congress. One representative to serve in the
United States congress shall be chosen from each congressional district at
the general election held in each even-numbered year.
(4) Constitutional officers; terms.
(a) A governor, lieutenant governor, secretary of state, treasurer
and an attorney general shall be elected at the general election in
1970 and quadrennially thereafter. A state superintendent shall be
elected on the first Tuesday in April 1917 and quadrennially
thereafter.
(b)
1. The regular full term of office of the state superintendent
commences on the first Monday of July, next succeeding the
superintendent's election.
2. The regular full term of each other officer enumerated in
par. (a) commences on the first Monday of January, next
succeeding the officer's election.
(5) District attorney; term. A district attorney shall be elected for each
prosecutorial unit specified in s. 978.01 at the general election in 2008
and quadrennially thereafter. The regular term of the office of district
attorney commences on the first Monday in January next succeeding the
officer's election.
14.

WIS. STAT. § 15.61
15.61

Elections commission; creation.

(1)

2249

(a) There is created an elections commission consisting of the
following members who shall serve for 5-year terms:
1. One member appointed by the senate majority leader.
2. One member appointed by the senate minority leader.
3. One member appointed by the speaker of the assembly.
4. One member appointed by the assembly minority leader.
5. Two members who formerly served as county or municipal
clerks and who are nominated by the governor, and with the
advice and consent of a majority of the members of the
senate confirmed. The legislative leadership of the 2 major
political parties that received the largest number of votes for
president shall prepare a list of 3 individuals such that each
major political party has prepared one list. The governor
shall choose one nominee from each list.
6. For each political party, other than the 2 major political
parties, qualifying for a separate ballot under s. 5.62 (1) (b)
or (2) whose candidate for governor received at least 10
percent of the vote in the most recent gubernatorial election,
one member, nominated by the governor from a list of 3
individuals selected by the chief officer of that political
party, and with the advice and consent of a majority of the
members of the senate confirmed.
(b)
1. The elections commission shall be under the direction and
supervision of an administrator, who shall be appointed by a
majority of the members of the commission, with the advice
and consent of the senate, to serve for a 4-year term expiring
on July 1 of the odd-numbered year. Until the senate has
confirmed an appointment made under this subdivision, the
elections commission shall be under the direction and
supervision of an interim administrator selected by a
majority of the members of the commission. If a vacancy
occurs in the administrator position, the commission shall
appoint a new administrator, and submit the appointment
for senate confirmation, no later than 45 days after the date
of the vacancy. If the commission has not appointed a new
administrator at the end of the 45-day period, the joint
committee on legislative organization shall appoint an
2250

interim administrator to serve until a new administrator
has been confirmed by the senate but for a term of no longer
than one year. If the administrator position remains vacant
at the end of the one-year period, the process for filling the
vacancy described in this subdivision is repeated until the
vacancy is filled.
2. The administrator may be removed by the affirmative
vote of a majority of all members of the commission voting at
a meeting of the commission called for that purpose.
(1m) Members appointed with the advice and consent of the
senate may serve prior to senate confirmation.
(2) No member of the commission may hold another office or
position that is a state public office or a local public office, as
defined in s. 19.42, except the office of circuit judge or court of
appeals judge under s. 753.075.
(3) No member, while serving on the commission, may become a
candidate, as defined in s. 11.0101 (1), for state office or local office,
as defined in s. 5.02.
(4) No member may be a lobbyist, as defined in s. 13.62 (11),
except that a member may serve as a circuit judge or court of
appeals judge under s. 753.075.
(5)
(a)
1. Except as provided in subd. 2., if a vacancy occurs for a
member appointed under sub. (1) (a) 1. to 4., the individual
responsible for making the appointment shall appoint a new
member no later than 45 days after the date of the vacancy.
2. If the political party affiliation of the individual
responsible for filling a vacancy under this paragraph is not
the same as the political party affiliation of the individual
who made the initial appointment, the legislative leader of
the political party that made the initial appointment shall
fill the vacancy.
(b) If a vacancy occurs for a member appointed under sub. (1) (a) 5.
or 6., a new member shall be selected, nominated, and submitted to

2251

the senate for confirmation no later than 45 days after the date of
the vacancy.
15.

WIS. STAT. § 5.03

16.

WIS. STAT. § 6.855
6.855

Alternate absentee ballot site.

(1) The governing body of a municipality may elect to designate a site
other than the office of the municipal clerk or board of election
commissioners as the location from which electors of the municipality
may request and vote absentee ballots and to which voted absentee
ballots shall be returned by electors for any election. The designated site
shall be located as near as practicable to the office of the municipal clerk
or board of election commissioners and no site may be designated that
affords an advantage to any political party. An election by a governing
body to designate an alternate site under this section shall be made no
fewer than 14 days prior to the time that absentee ballots are available
for the primary under s. 7.15 (1) (cm), if a primary is scheduled to be held,
or at least 14 days prior to the time that absentee ballots are available for
the election under s. 7.15 (1) (cm), if a primary is not scheduled to be
held, and shall remain in effect until at least the day after the election. If
the governing body of a municipality makes an election under this
section, no function related to voting and return of absentee ballots that
is to be conducted at the alternate site may be conducted in the office of
the municipal clerk or board of election commissioners.
(2) The municipal clerk or board of election commissioners shall
prominently display a notice of the designation of the alternate site
selected under sub. (1) in the office of the municipal clerk or board of
election commissioners beginning on the date that the site is designated
under sub. (1) and continuing through the period that absentee ballots
are available for the election and for any primary under s. 7.15 (1) (cm). If
the municipal clerk or board of election commissioners maintains a
website on the Internet, the clerk or board of election commissioners shall
post a notice of the designation of the alternate site selected under sub.
(1) on the website during the same period that notice is displayed in the
office of the clerk or board of election commissioners.
(3) An alternate site under sub. (1) shall be staffed by the municipal
clerk or the executive director of the board of election commissioners, or
employees of the clerk or the board of election commissioners.

2252

(4) An alternate site under sub. (1) shall be accessible to all individuals
with disabilities.
(5) A governing body may designate more than one alternate site under
sub. (1).
17.

WIS. STAT. 6.86
6.86

Methods for obtaining an absentee ballot.

(1)
(a) Any elector of a municipality who is registered to vote whenever
required and who qualifies under ss. 6.20 and 6.85 as an absent
elector may make written application to the municipal clerk of that
municipality for an official ballot by one of the following methods:
1. By mail.
2. In person at the office of the municipal clerk or at an
alternate site under s. 6.855, if applicable.
3. By signing a statement and filing a request to receive
absentee ballots under sub. (2) or (2m) (a) or s. 6.22 (4), 6.24
(4), or 6.25 (1) (c).
4. By agent as provided in sub. (3).
5. By delivering an application to a special voting deputy
under s. 6.875 (6).
6. By electronic mail or facsimile transmission as provided in
par. (ac).
(ac) Any elector qualifying under par. (a) may make written
application to the municipal clerk for an official ballot by means of
facsimile transmission or electronic mail. Any application under
this paragraph need not contain a copy of the applicant's original
signature. An elector requesting a ballot under this paragraph
shall return with the voted ballot a copy of the request bearing an
original signature of the elector as provided in s. 6.87 (4). Except as
authorized in ss. 6.87 (4) (b) 2. to 5. and 6.875 (6), and
notwithstanding s. 343.43 (1) (f), the elector shall transmit a copy
of his or her proof of identification in the manner provided in s.
6.87 (1) unless the elector is a military elector or an overseas
elector or the elector has a confidential listing under s. 6.47 (2).

2253

(ag) An elector who is unable to write his or her name due to
physical disability may authorize an application to be made by
another elector on his or her behalf. In such case, the application
shall state that it is made on request and by authorization of a
named elector who is unable to sign the application due to physical
disability.
(ar) Except as authorized in s. 6.875 (6), the municipal clerk shall
not issue an absentee ballot unless the clerk receives a written
application therefor from a qualified elector of the municipality.
The clerk shall retain each absentee ballot application until
destruction is authorized under s. 7.23 (1). Except as authorized in
s. 6.79 (6) and (7), if a qualified elector applies for an absentee
ballot in person at the clerk's office, the clerk shall not issue the
elector an absentee ballot unless the elector presents proof of
identification. The clerk shall verify that the name on the proof of
identification presented by the elector conforms to the name on the
elector's application and shall verify that any photograph
appearing on that document reasonably resembles the elector. The
clerk shall then enter his or her initials on the certificate envelope
indicating that the absentee elector presented proof of
identification to the clerk.
(b) Except as provided in this section, if application is made by
mail, the application shall be received no later than 5 p.m. on the
5th day immediately preceding the election. If application is made
in person, the application shall be made no earlier than 14 days
preceding the election and no later than the Sunday preceding the
election. No application may be received on a legal holiday. A
municipality shall specify the hours in the notice under s. 10.01 (2)
(e). The municipal clerk or an election official shall witness the
certificate for any in-person absentee ballot cast. Except as
provided in par. (c), if the elector is making written application for
an absentee ballot at the partisan primary, the general election,
the presidential preference primary, or a special election for
national office, and the application indicates that the elector is a
military elector, as defined in s. 6.34 (1), the application shall be
received by the municipal clerk no later than 5 p.m. on election
day. If the application indicates that the reason for requesting an
absentee ballot is that the elector is a sequestered juror, the
application shall be received no later than 5 p.m. on election day. If
the application is received after 5 p.m. on the Friday immediately
preceding the election, the municipal clerk or the clerk's agent
shall immediately take the ballot to the court in which the elector
is serving as a juror and deposit it with the judge. The judge shall
2254

recess court, as soon as convenient, and give the elector the ballot.
The judge shall then witness the voting procedure as provided in s.
6.87 and shall deliver the ballot to the clerk or agent of the clerk
who shall deliver it to the polling place or, in municipalities where
absentee ballots are canvassed under s. 7.52, to the municipal clerk
as required in s. 6.88. If application is made under sub. (2) or (2m),
the application may be received no later than 5 p.m. on the Friday
immediately preceding the election.
(c) If an application is made by mail by a military elector, as
defined in s. 6.22 (1) (b), the application shall be received no later
than 5 p.m. on the Friday immediately preceding the election.
(2)
(a) An elector who is indefinitely confined because of age, physical
illness or infirmity or is disabled for an indefinite period may by
signing a statement to that effect require that an absentee ballot
be sent to the elector automatically for every election. The
application form and instructions shall be prescribed by the
commission, and furnished upon request to any elector by each
municipality. The envelope containing the absentee ballot shall be
clearly marked as not forwardable. If any elector is no longer
indefinitely confined, the elector shall so notify the municipal clerk.
(b) The mailing list established under this subsection shall be kept
current through all possible means. If an elector fails to cast and
return an absentee ballot received under this subsection, the clerk
shall notify the elector by 1st class letter or postcard that his or her
name will be removed from the mailing list unless the clerk
receives a renewal of the application within 30 days of the
notification. The clerk shall remove from the list the name of each
elector who does not apply for renewal within the 30-day period.
The clerk shall remove the name of any other elector from the list
upon request of the elector or upon receipt of reliable information
that an elector no longer qualifies for the service. The clerk shall
notify the elector of such action not taken at the elector's request
within 5 days, if possible.
(2m)
(a) Except as provided in this subsection, any elector other than an
elector who receives an absentee ballot under sub. (2) or s. 6.22 (4)
or 6.24 (4) (c) may by written application filed with the municipal
clerk of the municipality where the elector resides require that an

2255

absentee ballot be sent to the elector automatically for every
election that is held within the same calendar year in which the
application is filed. The application form and instructions shall be
prescribed by the commission, and furnished upon request to any
elector by each municipal clerk. The municipal clerk shall
thereupon mail an absentee ballot to the elector for all elections
that are held in the municipality during the same calendar year
that the application is filed, except that the clerk shall not send an
absentee ballot for an election if the elector's name appeared on the
registration list in eligible status for a previous election following
the date of the application but no longer appears on the list in
eligible status. The municipal clerk shall ensure that any envelope
containing the absentee ballot is clearly marked as not
forwardable. If an elector who files an application under this
subsection no longer resides at the same address that is indicated
on the application form, the elector shall so notify the municipal
clerk. The municipal clerk shall discontinue mailing absentee
ballots to an elector under this subsection upon receipt of reliable
information that the elector no longer qualifies as an elector of the
municipality. In addition, the municipal clerk shall discontinue
mailing absentee ballots to an elector under this subsection if the
elector fails to return any absentee ballot mailed to the elector. The
municipal clerk shall notify the elector of any such action not taken
at the elector's request within 5 days, if possible. An elector who
fails to cast an absentee ballot but who remains qualified to receive
absentee ballots under this subsection may then receive absentee
ballots for subsequent elections by notifying the municipal clerk
that the elector wishes to continue receiving absentee ballots for
subsequent elections.
(b) If a municipal clerk is notified by an elector that the elector's
residence is changed to another municipality within this state, the
clerk shall forward the request to the municipal clerk of that
municipality and that municipal clerk shall honor the request,
except as provided in this subsection.
(3)
(a)
1. Any elector who is registered and who is hospitalized, may
apply for and obtain an official ballot by agent. The agent
may apply for and obtain a ballot for the hospitalized absent
elector by presenting a form prescribed by the commission
and containing the required information supplied by the

2256

hospitalized elector and signed by that elector, unless the
elector is unable to sign due to physical disability. In this
case, the elector may authorize another elector to sign on his
or her behalf. Any elector signing an application on another
elector's behalf shall attest to a statement that the
application is made on request and by authorization of the
named elector, who is unable to sign the application due to
physical disability. The agent shall present this statement
along with all other information required under this
subdivision. Except as authorized for an elector who has a
confidential listing under s. 6.47 (2) or as authorized under
s. 6.87 (4) (b) 4., the agent shall present any proof of
identification required under sub. (1) (ar). The form shall
include a space for the municipal clerk or deputy clerk to
enter his or her initials indicating that the agent presented
proof of identification to the clerk on behalf of the elector.
2. If a hospitalized elector is not registered, the elector may
register by agent under this subdivision at the same time
that the elector applies for an official ballot by agent under
subd. 1. To register the elector under this subdivision, the
agent shall present a completed registration form that
contains the required information supplied by the elector
and the elector's signature, unless the elector is unable to
sign due to physical disability. In this case, the elector may
authorize another elector to sign on his or her behalf. Any
elector signing a form on another elector's behalf shall attest
to a statement that the application is made on request and
by authorization of the named elector, who is unable to sign
the form due to physical disability. The agent shall present
this statement along with all other information required
under this subdivision. The agent shall provide proof of the
elector's residence under s. 6.34.
(b) When each properly executed form and statement required
under par. (a) is presented to the municipal clerk, if the elector
who proposes to vote is qualified, an absentee ballot shall be issued
and the name of such hospitalized elector shall be recorded by the
clerk. An agent who is issued an absentee ballot under this section
shall present documentation of his or her identity, provide his or
her name and address, and attest to a statement that the ballot is
received solely for the benefit of a named elector who is
hospitalized, and the agent will promptly transmit the ballot to
such person.

2257

(c) An application under par. (a) 1. may be made and a registration
form under par. (a) 2. may be filed in person at the office of the
municipal clerk not earlier than 7 days before an election and not
later than 5 p.m. on the day of the election. A list of hospitalized
electors applying for ballots under par. (a) 1. shall be made by the
municipal clerk and used to check that the electors vote only once,
and by absentee ballot. If the elector is registering for the election
after the close of registration or if the elector registered by mail
and has not voted in an election in this state, the municipal clerk
shall inform the agent that proof of residence under s. 6.34 is
required and the elector shall enclose proof of residence under s.
6.34 in the envelope with the ballot. The clerk shall verify that the
name on any required proof of identification presented by the agent
conforms to the name on the elector's application. The clerk shall
then enter his or her initials on the carrier envelope indicating that
the agent presented proof of identification to the clerk. The agent is
not required to enter a signature on the registration list. The ballot
shall be sealed by the elector and returned to the municipal clerk
either by mail or by personal delivery of the agent; but if the ballot
is returned on the day of the election, the agent shall make
personal delivery to the polling place serving the hospitalized
elector's residence before the closing hour or, in municipalities
where absentee ballots are canvassed under s. 7.52, to the
municipal clerk no later than 8 p.m. on election day.
(4) If a municipality employs an electronic voting system which utilizes a
ballot that is inserted into automatic tabulating equipment, the
municipality may distribute ballots for utilization with the electronic
voting system as absentee ballots or it may distribute paper ballots as
absentee ballots.
(5) Whenever an elector returns a spoiled or damaged absentee ballot to
the municipal clerk, or an elector's agent under sub. (3) returns a spoiled
or damaged ballot to the clerk on behalf of an elector, and the clerk
believes that the ballot was issued to or on behalf of the elector who is
returning it, the clerk shall issue a new ballot to the elector or elector's
agent, and shall destroy the spoiled or damaged ballot. Any request for a
replacement ballot under this subsection must be made within the
applicable time limits under subs. (1) and (3) (c).
(6) Except as authorized in sub. (5) and s. 6.87 (9), if an elector mails or
personally delivers an absentee ballot to the municipal clerk, the
municipal clerk shall not return the ballot to the elector. An elector who
mails or personally delivers an absentee ballot to the municipal clerk at

2258

an election is not permitted to vote in person at the same election on
election day.
(7) The clerk shall send or transmit an official absentee ballot no later
than the deadline provided under s. 7.15 (1) (cm).
18.

WIS. STAT. 6.87
6.87

Absent voting procedure.

(1) Upon proper request made within the period prescribed in s. 6.86,
the municipal clerk or a deputy clerk authorized by the municipal clerk
shall write on the official ballot, in the space for official endorsement, the
clerk's initials and official title. Unless application is made in person
under s. 6.86 (1) (ar), the absent elector is exempted from providing proof
of identification under sub. (4) (b) 2. or 3., or the applicant is a military or
overseas elector, the absent elector shall enclose a copy of his or her proof
of identification or any authorized substitute document with his or her
application. The municipal clerk shall verify that the name on the proof of
identification conforms to the name on the application. The clerk shall
not issue an absentee ballot to an elector who is required to enclose a
copy of proof of identification or an authorized substitute document with
his or her application unless the copy is enclosed and the proof is verified
by the clerk.
(2) Except as authorized under sub. (3) (d), the municipal clerk shall
place the ballot in an unsealed envelope furnished by the clerk. The
envelope shall have the name, official title and post-office address of the
clerk upon its face. The other side of the envelope shall have a printed
certificate which shall include a space for the municipal clerk or deputy
clerk to enter his or her initials indicating that if the absentee elector
voted in person under s. 6.86 (1) (ar), the elector presented proof of
identification to the clerk and the clerk verified the proof presented. The
certificate shall also include a space for the municipal clerk or deputy
clerk to enter his or her initials indicating that the elector is exempt from
providing proof of identification because the individual is a military
elector or an overseas elector who does not qualify as a resident of this
state under s. 6.10 or is exempted from providing proof of identification
under sub. (4) (b) 2. or 3. The certificate shall be in substantially the
following form:
[STATE OF ....
County of ....]
or
2259

[(name of foreign country and city or other jurisdictional unit)]
I, ...., certify subject to the penalties of s. 12.60 (1) (b), Wis. Stats., for
false statements, that I am a resident of the [.... ward of the] (town)
(village) of ...., or of the .... aldermanic district in the city of ...., residing at
....* in said city, the county of ...., state of Wisconsin, and am entitled to
vote in the (ward) (election district) at the election to be held on ....; that I
am not voting at any other location in this election; that I am unable or
unwilling to appear at the polling place in the (ward) (election district) on
election day or have changed my residence within the state from one
ward or election district to another later than 28 days before the election.
I certify that I exhibited the enclosed ballot unmarked to the witness,
that I then in (his) (her) presence and in the presence of no other person
marked the ballot and enclosed and sealed the same in this envelope in
such a manner that no one but myself and any person rendering
assistance under s. 6.87 (5), Wis. Stats., if I requested assistance, could
know how I voted.
Signed ....
Identification serial number, if any: ....
The witness shall execute the following:
I, the undersigned witness, subject to the penalties of s. 12.60 (1) (b), Wis.
Stats., for false statements, certify that I am an adult U.S. citizen** and
that the above statements are true and the voting procedure was
executed as there stated. I am not a candidate for any office on the
enclosed ballot (except in the case of an incumbent municipal clerk). I did
not solicit or advise the elector to vote for or against any candidate or
measure.
....(Printed name)
....(Address)***
Signed ....
* — An elector who provides an identification serial number issued under
s. 6.47 (3), Wis. Stats., need not provide a street address.
** — An individual who serves as a witness for a military elector or an
overseas elector voting absentee, regardless of whether the elector
qualifies as a resident of Wisconsin under s. 6.10, Wis. Stats., need not be
a U.S. citizen but must be 18 years of age or older.

2260

*** — If this form is executed before 2 special voting deputies under s.
6.875 (6), Wis. Stats., both deputies shall witness and sign.
(3)
(a) Except as authorized under par. (d) and as otherwise provided
in s. 6.875, the municipal clerk shall mail the absentee ballot to the
elector's residence unless otherwise directed by the elector, or shall
deliver it to the elector personally at the clerk's office or at an
alternate site under s. 6.855. If the ballot is mailed, and the ballot
qualifies for mailing free of postage under federal free postage
laws, the clerk shall affix the appropriate legend required by U.S.
postal regulations. Otherwise, the clerk shall pay the postage
required for return when the ballot is mailed from within the
United States. If the ballot is not mailed by the absentee elector
from within the United States, the absentee elector shall provide
return postage. If the ballot is delivered to the elector at the clerk's
office, or an alternate site under s. 6.855, the ballot shall be voted
at the office or alternate site and may not be removed by the
elector therefrom.
(b) No elector may direct that a ballot be sent to the address of a
committee registered with the ethics commission under ch. 11
unless the elector permanently or temporarily resides at that
address. Upon receipt of reliable information that an address given
by an elector is not eligible to receive ballots under this subsection,
the municipal clerk shall refrain from mailing or transmitting
ballots to that address. Whenever possible, the municipal clerk
shall notify an elector if his or her ballot cannot be mailed or
transmitted to the address directed by the elector.
(d) A municipal clerk shall, if the clerk is reliably informed by a
military elector, as defined in s. 6.34 (1), or an overseas elector,
regardless of whether the elector qualifies as a resident of this
state under s. 6.10, of a facsimile transmission number or
electronic mail address where the elector can receive an absentee
ballot, transmit a facsimile or electronic copy of the elector's ballot
to that elector in lieu of mailing under this subsection. An elector
may receive an absentee ballot only if the elector is a military
elector or an overseas elector and has filed a valid application for
the ballot as provided in s. 6.86 (1). If the clerk transmits an
absentee ballot to a military or overseas elector electronically, the
clerk shall also transmit a facsimile or electronic copy of the text of
the material that appears on the certificate envelope prescribed in
sub. (2), together with instructions prescribed by the commission.

2261

The instructions shall require the military or overseas elector to
make and subscribe to the certification as required under sub. (4)
(b) and to enclose the absentee ballot in a separate envelope
contained within a larger envelope, that shall include the
completed certificate. The elector shall then affix sufficient postage
unless the absentee ballot qualifies for mailing free of postage
under federal free postage laws and shall mail the absentee ballot
to the municipal clerk. Except as authorized in s. 6.97 (2), an
absentee ballot received from a military or overseas elector who
receives the ballot electronically shall not be counted unless it is
cast in the manner prescribed in this paragraph and sub. (4) and in
accordance with the instructions provided by the commission.
(4)
(a) In this subsection, “military elector" has the meaning given in s.
6.34 (1).
(b)
1. Except as otherwise provided in s. 6.875, an elector voting
absentee, other than a military elector or an overseas elector, shall
make and subscribe to the certification before one witness who is
an adult U.S. citizen. A military elector or an overseas elector
voting absentee, regardless of whether the elector qualifies as a
resident of this state under s. 6.10, shall make and subscribe to the
certification before one witness who is an adult but who need not
be a U.S. citizen. The absent elector, in the presence of the witness,
shall mark the ballot in a manner that will not disclose how the
elector's vote is cast. The elector shall then, still in the presence of
the witness, fold the ballots so each is separate and so that the
elector conceals the markings thereon and deposit them in the
proper envelope. If a consolidated ballot under s. 5.655 is used, the
elector shall fold the ballot so that the elector conceals the
markings thereon and deposit the ballot in the proper envelope. If
proof of residence under s. 6.34 is required and the document
enclosed by the elector under this subdivision does not constitute
proof of residence under s. 6.34, the elector shall also enclose proof
of residence under s. 6.34 in the envelope. Except as provided in s.
6.34 (2m), proof of residence is required if the elector is not a
military elector or an overseas elector and the elector registered by
mail or by electronic application and has not voted in an election in
this state. If the elector requested a ballot by means of facsimile
transmission or electronic mail under s. 6.86 (1) (ac), the elector
shall enclose in the envelope a copy of the request which bears an

2262

original signature of the elector. The elector may receive assistance
under sub. (5). The return envelope shall then be sealed. The
witness may not be a candidate. The envelope shall be mailed by
the elector, or delivered in person, to the municipal clerk issuing
the ballot or ballots. If the envelope is mailed from a location
outside the United States, the elector shall affix sufficient postage
unless the ballot qualifies for delivery free of postage under federal
law. Failure to return an unused ballot in a primary does not
invalidate the ballot on which the elector's votes are cast. Return of
more than one marked ballot in a primary or return of a ballot
prepared under s. 5.655 or a ballot used with an electronic voting
system in a primary which is marked for candidates of more than
one party invalidates all votes cast by the elector for candidates in
the primary.
2. Unless subd. 3. applies, if the absentee elector has applied for and
qualified to receive absentee ballots automatically under s. 6.86 (2) (a),
the elector may, in lieu of providing proof of identification, submit with
his or her absentee ballot a statement signed by the same individual who
witnesses voting of the ballot which contains the name and address of the
elector and verifies that the name and address are correct.
3. If the absentee elector has received an absentee ballot from the
municipal clerk by mail for a previous election, has provided proof of
identification with that ballot, and has not changed his or her name or
address since providing that proof of identification, the elector is not
required to provide proof of identification.
4. If the absentee elector has received a citation or notice of intent to
revoke or suspend an operator's license from a law enforcement officer in
any jurisdiction that is dated within 60 days of the date of the election
and is required to surrender his or her operator's license or driving
receipt issued to the elector under ch. 343 at the time the citation or
notice is issued, the elector may enclose a copy of the citation or notice in
lieu of a copy of an operator's license or driving receipt issued under ch.
343 if the elector is voting by mail, or may present an original copy of the
citation or notice in lieu of an operator's license or driving receipt under
ch. 343 if the elector is voting at the office of the municipal clerk.
5. Unless subd. 3. or 4. applies, if the absentee elector resides in a
qualified retirement home, as defined in s. 6.875 (1) (at), or a residential
care facility, as defined in s. 6.875 (1) (bm), and the municipal clerk or
board of election commissioners of the municipality where the facility or
home is located does not send special voting deputies to visit the facility
or home at the election under s. 6.875, the elector may, in lieu of

2263

providing proof of identification, submit with his or her absentee ballot a
statement signed by the same individual who witnesses voting of the
ballot that contains the certification of an authorized representative of
the facility or home that the elector resides in the facility or home and the
facility or home is certified or registered as required by law, that contains
the name and address of the elector, and that verifies that the name and
address are correct.
(5) If the absent elector declares that he or she is unable to read, has
difficulty in reading, writing or understanding English or due to
disability is unable to mark his or her ballot, the elector may select any
individual, except the elector's employer or an agent of that employer or
an officer or agent of a labor organization which represents the elector, to
assist in marking the ballot, and the assistant shall then sign his or her
name to a certification on the back of the ballot, as provided under s. 5.55.
(6) The ballot shall be returned so it is delivered to the polling place no
later than 8 p.m. on election day. Except in municipalities where
absentee ballots are canvassed under s. 7.52, if the municipal clerk
receives an absentee ballot on election day, the clerk shall secure the
ballot and cause the ballot to be delivered to the polling place serving the
elector's residence before 8 p.m. Any ballot not mailed or delivered as
provided in this subsection may not be counted.
(6d) If a certificate is missing the address of a witness, the ballot may
not be counted.
(6m) Except as authorized in s. 6.47 (8), the municipal clerk shall
withhold from public inspection under s. 19.35 (1) the name and address
of any absent elector who obtains a confidential listing under s. 6.47 (2).
(7) No individual who is a candidate at the election in which absentee
ballots are cast may serve as a witness. Any candidate who serves as a
witness shall be penalized by the discounting of a number of votes for his
or her candidacy equal to the number of certificate envelopes bearing his
or her signature.
(8) The provisions of this section which prohibit candidates from serving
as a witness for absentee electors shall not apply to the municipal clerk in
the performance of the clerk's official duties.
19.

WIS. STAT. § 6.89
6.89 Absent electors list public. The municipal clerk shall keep a list of
all electors who make application for an absent elector's ballot and who

2264

have voted under the absent elector provisions giving the name, address
and date of application. The list shall be open to public inspection.
20.

WIS. STAT. § 15.61
15.61

Elections commission; creation.

(1)
(a) There is created an elections commission consisting of the
following members who shall serve for 5-year terms:
1. One member appointed by the senate majority leader.
2. One member appointed by the senate minority leader.
3. One member appointed by the speaker of the assembly.
4. One member appointed by the assembly minority leader.
5. Two members who formerly served as county or municipal
clerks and who are nominated by the governor, and with the
advice and consent of a majority of the members of the
senate confirmed. The legislative leadership of the 2 major
political parties that received the largest number of votes for
president shall prepare a list of 3 individuals such that each
major political party has prepared one list. The governor
shall choose one nominee from each list.
6. For each political party, other than the 2 major political
parties, qualifying for a separate ballot under s. 5.62 (1) (b)
or (2) whose candidate for governor received at least 10
percent of the vote in the most recent gubernatorial election,
one member, nominated by the governor from a list of 3
individuals selected by the chief officer of that political
party, and with the advice and consent of a majority of the
members of the senate confirmed.
(b)
1. The elections commission shall be under the direction and
supervision of an administrator, who shall be appointed by a
majority of the members of the commission, with the advice
and consent of the senate, to serve for a 4-year term expiring
on July 1 of the odd-numbered year. Until the senate has
confirmed an appointment made under this subdivision, the

2265

elections commission shall be under the direction and
supervision of an interim administrator selected by a
majority of the members of the commission. If a vacancy
occurs in the administrator position, the commission shall
appoint a new administrator, and submit the appointment
for senate confirmation, no later than 45 days after the date
of the vacancy. If the commission has not appointed a new
administrator at the end of the 45-day period, the joint
committee on legislative organization shall appoint an
interim administrator to serve until a new administrator
has been confirmed by the senate but for a term of no longer
than one year. If the administrator position remains vacant
at the end of the one-year period, the process for filling the
vacancy described in this subdivision is repeated until the
vacancy is filled.
2. The administrator may be removed by the affirmative
vote of a majority of all members of the commission voting at
a meeting of the commission called for that purpose.
(1m) Members appointed with the advice and consent of the senate may
serve prior to senate confirmation.
(2) No member of the commission may hold another office or position
that is a state public office or a local public office, as defined in s. 19.42,
except the office of circuit judge or court of appeals judge under s.
753.075.
(3) No member, while serving on the commission, may become a
candidate, as defined in s. 11.0101 (1), for state office or local office, as
defined in s. 5.02.
(4) No member may be a lobbyist, as defined in s. 13.62 (11), except that
a member may serve as a circuit judge or court of appeals judge under s.
753.075.
(5)
(a)
1. Except as provided in subd. 2., if a vacancy occurs for a
member appointed under sub. (1) (a) 1. to 4., the individual
responsible for making the appointment shall appoint a new
member no later than 45 days after the date of the vacancy.

2266

2. If the political party affiliation of the individual
responsible for filling a vacancy under this paragraph is not
the same as the political party affiliation of the individual
who made the initial appointment, the legislative leader of
the political party that made the initial appointment shall
fill the vacancy.
(b) If a vacancy occurs for a member appointed under sub. (1) (a) 5.
or 6., a new member shall be selected, nominated, and submitted to
the senate for confirmation no later than 45 days after the date of
the vacancy.

2267

